<html>
<title> - NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, FIRST SESSION, 110TH CONGRESS</title>
<body><pre>[Senate Hearing 110-370]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 110-370
 
        NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE,
                     FIRST SESSION, 110TH CONGRESS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   on

                             NOMINATIONS OF

 LTG DAVID H. PETRAEUS, USA; ADM WILLIAM J. FALLON, USN; GEN GEORGE W. 
   CASEY, JR., USA; ADM TIMOTHY J. KEATING, USN; LT. GEN. VICTOR E. 
     RENUART, JR., USAF; LTG ROBERT L. VAN ANTWERP, USA; CLAUDE M. 
KICKLIGHTER; JAMES R. CLAPPER, JR., S. WARD CASSCELLS, M.D., WILLIAM C. 
OSTENDORFF; LTG DOUGLAS E. LUTE, USA; MICHAEL G. VICKERS; VADM ERIC T. 
   OLSON, USN; HON. THOMAS P. D'AGOSTINO; HON. PRESTON M. GEREN; ADM 
   MICHAEL G. MULLEN, USN; GEN. JAMES E. CARTWRIGHT, USMC; ADM GARY 
 ROUGHEAD, USN; GEN WILLIAM E. WARD, USA; GEN. KEVIN P. CHILTON, USAF; 
LT. GEN. JAMES N. MATTIS, USMC; HON. JOHN J. YOUNG, JR., HON. DOUGLAS A 
 BROOK; MAJ. GEN. ROBERT L. SMOLEN, USAF; MARY BETH LONG; JAMES SHINN; 
                 CRAIG W. DUEHRING; AND JOHN H. GIBSON

                               ----------                              

 JANUARY 23, 30; FEBRUARY 1, 6, 27; MARCH 8, 27; JUNE 7, 12, 19; JULY 
      31; SEPTEMBER 27; OCTOBER 4; NOVEMBER 15; DECEMBER 18, 2007

                               ----------                              

         Printed for the use of the Committee on Armed Services


NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, FIRST SESSION, 
                             110TH CONGRESS

                                                        S. Hrg. 110-370

        NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE,
                     FIRST SESSION, 110TH CONGRESS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   on

                             NOMINATIONS OF

 LTG DAVID H. PETRAEUS, USA; ADM WILLIAM J. FALLON, USN; GEN GEORGE W. 
   CASEY, JR., USA; ADM TIMOTHY J. KEATING, USN; LT. GEN. VICTOR E. 
     RENUART, JR., USAF; LTG ROBERT L. VAN ANTWERP, USA; CLAUDE M. 
KICKLIGHTER; JAMES R. CLAPPER, JR., S. WARD CASSCELLS, M.D., WILLIAM C. 
OSTENDORFF; LTG DOUGLAS E. LUTE, USA; MICHAEL G. VICKERS; VADM ERIC T. 
   OLSON, USN; HON. THOMAS P. D'AGOSTINO; HON. PRESTON M. GEREN; ADM 
   MICHAEL G. MULLEN, USN; GEN. JAMES E. CARTWRIGHT, USMC; ADM GARY 
 ROUGHEAD, USN; GEN WILLIAM E. WARD, USA; GEN. KEVIN P. CHILTON, USAF; 
LT. GEN. JAMES N. MATTIS, USMC; HON. JOHN J. YOUNG, JR., HON. DOUGLAS A 
 BROOK; MAJ. GEN. ROBERT L. SMOLEN, USAF; MARY BETH LONG; JAMES SHINN; 
                 CRAIG W. DUEHRING; AND JOHN H. GIBSON

                               __________

 JANUARY 23, 30; FEBRUARY 1, 6, 27; MARCH 8, 27; JUNE 7, 12, 19; JULY 
      31; SEPTEMBER 27; OCTOBER 4; NOVEMBER 15; DECEMBER 18, 2007

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
42-309 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                 (from January 12, 2007-July 17, 2007)

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
EVAN BAYH, Indiana                   LINDSEY O. GRAHAM, South Carolina
HILLARY RODHAM CLINTON, New York     ELIZABETH DOLE, North Carolina
MARK L. PRYOR, Arkansas              JOHN CORNYN, Texas
JIM WEBB, Virginia                   JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           MEL MARTINEZ, Florida

                                 ______

                      COMMITTEE ON ARMED SERVICES

                 (from July 18, 2007-December 31, 2007)

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 SAXBY CHAMBLISS, Georgia
E. BENJAMIN NELSON, Nebraska         LINDSEY O. GRAHAM, South Carolina
EVAN BAYH, Indiana                   ELIZABETH DOLE, North Carolina
HILLARY RODHAM CLINTON, New York     JOHN CORNYN, Texas
MARK L. PRYOR, Arkansas              JOHN THUNE, South Dakota
JIM WEBB, Virginia                   MEL MARTINEZ, Florida
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi

                   Richard D. DeBobes, Staff Director

              Michael V. Kostiw, Republican Staff Director

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES

                                                                   Page

                            january 23, 2007

Nomination of LTG David H. Petraeus, USA, to be General and 
  Commander, Multinational Forces-Iraq...........................     1

Statement of:

Petraeus, LTG David H., USA, to be General and Commander, 
  Multinational Forces-Iraq......................................     4

                            january 30, 2007

Nomination of ADM William J. Fallon, USN, for Reappointment to 
  the Grade of Admiral and to be Commander, United States Central 
  Command........................................................   111

Statement of:

Fallon, ADM William J., USN, for Reappointment to the Grade of 
  Admiral and to be Commander, United States Central Command.....   124

                            february 1, 2007

Nomination of GEN George W. Casey, Jr., USA, for Reappointment to 
  the Grade of General and to be Chief of Staff, United States 
  Army...........................................................   191

Statement of:

Casey, GEN George W., Jr., USA, for Reappointment to the Grade of 
  General and to be Chief of Staff, United States Army...........   195

                            february 6, 2007

To Consider the Nominations of ADM William J. Fallon, USN, for 
  Reappointment to the Grade of Admiral and to be Commander, U.S. 
  Central Command; GEN George W. Casey, Jr., USA, for 
  Reappointment to the Grade of General and to be Chief of Staff 
  of the Army; and to Vote on Pending Military Nominations.......   301

                           february 27, 2007

To Consider Certain Pending Military Nominations.................   305

                             march 8, 2007

Nominations of ADM Timothy J. Keating, USN, for Reappointment to 
  the Grade of Admiral and to be Commander, United States Pacific 
  Command; Lt. Gen. Victor E. Renuart, Jr., USAF, for Appointment 
  to be General and to be Commander, United States Northern 
  Command/Commander, North American Aerospace Defense Command; 
  and LTG Robert L. Van Antwerp, USA, for Reappointment to the 
  Grade of Lieutenant General and to be Chief of Engineers/
  Commanding General, United States Army Corps of Engineers......   309

                                 (iii)

Statements of:

Keating, ADM Timothy J., USN, for Reappointment to the Grade of 
  Admiral and to be Commander, United States Pacific Command.....   313
Renuart, Lt. Gen. Victor E., Jr., USAF, for Appointment to be 
  General and to be Commander, United States Northern Command/
  Commander, North American Aerospace Defense Command............   314
Van Antwerp, LTG Robert L., USA, for Reappointment to the Grade 
  of Lieutenant General and to be Chief of Engineers/Commanding 
  General, United States Army Corps of Engineers.................   315

                             march 27, 2007

Nominations of Claude M. Kicklighter to be Inspector General, 
  Department of Defense; James R. Clapper, Jr., to be Under 
  Secretary of Defense for Intelligence; S. Ward Casscells, M.D., 
  to be Assistant Secretary of Defense for Health Affairs; and 
  William C. Ostendorff to be Principal Deputy Administrator, 
  National Nuclear Security Administration.......................   403

Statements of:

Hutchison, Hon. Kay Bailey, U.S. Senator from the State of Texas.   405
Cornyn, Hon. John, U.S. Senator from the State of Texas..........   406
Everett, Hon. Terry, U.S. Representative from the State of 
  Alabama........................................................   407
Kicklighter, LTG Claude M., USA, (Ret.), to be Inspector General, 
  Department of Defense..........................................   414
Clapper, Lt. Gen. James R., Jr., USAF, (Ret.), to be Under 
  Secretary of Defense for Intelligence..........................   415
Casscells, S. Ward, M.D., to be Assistant Secretary of Defense 
  for Health Affairs.............................................   416
Ostendorff, William C., to be Principal Deputy Administrator, 
  National Nuclear Security Administration.......................   416

                              june 7, 2007

Nomination of LTG Douglas E. Lute, USA, to be Assistant to the 
  President and Deputy National Security Advisor for Iraq and 
  Afghanistan....................................................   543

Statement of:

Lute, LTG Douglas E., USA, to be Assistant to the President and 
  Deputy National Security Advisor for Iraq and Afghanistan......   552

                             june 12, 2007

Nominations of Michael G. Vickers to be Assistant Secretary of 
  Defense for Special Operations and Low-Intensity Conflict; VADM 
  Eric T. Olson, USN, for Appointment to the Grade of Admiral and 
  to be Commander, United States Special Operations Command; and 
  Hon. Thomas P. D'Agostino to be Under Secretary for Nuclear 
  Security, Department of Energy, and Administrator of the 
  National Nuclear Security Administration.......................   603

Statements of:

Vickers, Michael G., to be Assistant Secretary of Defense for 
  Special Operations and Low-Intensity Conflict..................   608
Olson, VADM Eric T., USN, for Appointment to the Grade of Admiral 
  and to be Commander, United States Special Operations Command..   609
D'Agostino, Hon. Thomas P., to be Under Secretary for Nuclear 
  Security, Department of Energy, and Administrator of the 
  National Nuclear Security Administration.......................   610

                             june 19, 2007

Nomination of Hon. Preston M. Geren to be Secretary of the Army..   701

Statements of:

Hutchison, Hon. Kay Bailey, U.S. Senator from the State of Texas.   702
Geren, Hon. Preston M., to be Secretary of the Army..............   709

                             july 31, 2007

Nominations of ADM Michael G. Mullen, USN, for Reappointment to 
  the Grade of Admiral and to be Chairman of the Joint Chiefs of 
  Staff; and Gen. James E. Cartwright, USMC, for Reappointment to 
  the Grade of General and to be Vice Chairman of the Joint 
  Chiefs of Staff................................................   809

Statements of:

Mullen, ADM Michael G., USN, for Reappointment to the Grade of 
  Admiral and to be Chairman of the Joint Chiefs of Staff........   815
Cartwright, Gen. James E., USMC, for Reappointment to the Grade 
  of General and to be Vice Chairman of the Joint Chiefs of Staff   817

                             july 31, 2007

To Consider Certain Pending Military Nominations.................   941

                           september 27, 2007

Nominations of ADM Gary Roughead, USN, for Reappointment to the 
  Grade of Admiral and to be Chief of Naval Operations; GEN 
  William E. Ward, USA, for Appointment to the Grade of General 
  and to be Commander, United States Africa Command; Gen. Kevin 
  P. Chilton, USAF, for Reappointment to the Grade of General and 
  to be Commander, United States Strategic Command; and Lt. Gen. 
  James N. Mattis, USMC, to be General and to be Commander, 
  United States Joint Forces Command and Supreme Allied Commander 
  for Transformation.............................................   945

Statements of:

Roughead, ADM Gary, USN, for Reappointment to the Grade of 
  Admiral and to be Chief of Naval Operations....................   951
Inouye, Hon. Daniel K., U.S. Senator from the State of Hawaii....   952
Ward, GEN William E., USA, for Reappointment to the Grade of 
  General and to be Commander, United States Africa Command......   953
Chilton, Gen. Kevin P., USAF, for Reappointment to the Grade of 
  General and to be Commander, United States Strategic Command...   955
Mattis, Lt. Gen. James N., USMC, to be General and to be 
  Commander, United States Joint Forces Command and Supreme 
  Allied Commander for Transformation............................   956

                            october 4, 2007

Nominations of Hon. John J. Young, Jr., to be Under Secretary of 
  Defense for Acquisition, Technology, and Logistics; Hon. 
  Douglas A. Brook to be Assistant Secretary of the Navy for 
  Financial Management and Comptroller; and Maj. Gen. Robert L. 
  Smolen, USAF, (Ret.) to be Deputy Administrator for Defense 
  Programs, National Nuclear Security Administration.............  1085

Statements of:

Stevens, Hon. Ted, U.S. Senator from the State of Alaska.........  1089
Young, Hon. John J., Jr., to be Under Secretary of Defense for 
  Acquisition, Technology, and Logistics.........................  1092
Inouye, Hon. Daniel K., U.S. Senator from the State of Hawaii....  1092
Smolen, Maj. Gen. Robert L., USAF, (Ret.), to be Deputy 
  Administrator for Defense Programs, National Nuclear Security 
  Administration.................................................  1094
Brook, Hon. Douglas A., to be Assistant Secretary of the Navy for 
  Financial Management and Comptroller...........................  1095

                           november 15, 2007

To Consider Certain Pending Civilian and Military Nominations....  1191

                           december 18, 2007

Nominations of Mary Beth Long to be Assistant Secretary of 
  Defense for International Security Affairs; James Shinn to be 
  Assistant Secretary of Defense for Asian and Pacific Security 
  Affairs; Craig W. Duehring to be Assistant Secretary of the Air 
  Force for Manpower and Reserve Affairs; and John H. Gibson to 
  be Assistant Secretary of the Air Force for Financial 
  Management.....................................................  1195

Statements of:

Long, Mary Beth, to be Assistant Secretary of Defense for 
  International Security Affairs.................................  1198
Shinn, James, to be Assistant Secretary of Defense for Asian and 
  Pacific Security Affairs.......................................  1199
Coleman, Hon. Norm, U.S. Senator from the State of Minnesota.....  1199
Duehring, Craig W., to be Assistant Secretary of the Air Force 
  for Manpower and Reserve Affairs...............................  1200
Gibson, John H., to be Assistant Secretary of the Air Force for 
  Financial Management...........................................  1201

APPENDIX.........................................................  1289


NOMINATION OF LTG DAVID H. PETRAEUS, USA, TO BE GENERAL AND COMMANDER, 
                       MULTINATIONAL FORCES-IRAQ

                              ----------                              


                       TUESDAY, JANUARY 23, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m. in room 
SR-325, Russell Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, 
Lieberman, Reed, Bill Nelson, Bayh, Clinton, Pryor, Webb, 
McCaskill, McCain, Warner, Inhofe, Sessions, Collins, 
Chambliss, Graham, Cornyn, Thune, and Martinez.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; Evelyn N. Farkas, professional staff 
member; Michael J. Kuiken, professional staff member; Gerald J. 
Leeling, counsel; Peter K. Levine, chief counsel; Michael J. 
McCord, professional staff member; William G.P. Monahan, 
counsel; and William K. Sutey, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Ambrose R. Hock, professional staff member; 
Gregory T. Kiley, professional staff member; David M. Morriss, 
minority counsel; Lucian L. Niemeyer, professional staff 
member; Bryan D. Parker, minority investigative counsel; 
Christopher J. Paul, professional staff member; Lynn F. Rusten, 
professional staff member; Jill L. Simodejka, research 
assistant; Robert M. Soofer, professional staff member; Diana 
G. Tabler, professional staff member; and Richard F. Walsh, 
minority counsel.
    Staff assistants present: David G. Collins, Fletcher L. 
Cork, and Jessica L. Kingston.
    Committee members' assistants present: Joseph Axelrad and 
Sharon L. Waxman, assistants to Senator Kennedy; Frederick M. 
Downey, assistant to Senator Lieberman; Elizabeth King, 
assistant to Senator Reed; Caroline Tess, assistant to Senator 
Bill Nelson; Todd Rosenblum, assistant to Senator Bayh; Lauren 
Henry, assistant to Senator Pryor; Gordon I. Peterson and 
Michael Sozan, assistants to Senator Webb; Nichole M. 
Distefano, assistant to Senator McCaskill; Richard H. Fontaine, 
Jr., assistant to Senator McCain; Sandra Luff, assistant to 
Senator Warner; Jeremy Shull, assistant to Senator Inhofe; Arch 
Galloway II, assistant to Senator Sessions; Mark Winter, 
assistant to Senator Collins; Clyde A. Taylor IV, assistant to 
Senator Chambliss; Adam G. Brake, assistant to Senator Graham; 
Lindsey Neas, assistant to Senator Dole; Russell J. Thomasson, 
assistant to Senator Cornyn; Stuart C. Mallory and Bob Taylor, 
assistants to Senator Thune; and Brian W. Walsh, assistant to 
Senator Martinez.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. The hearing will come to order.
    General Petraeus' nomination to become the Commander of 
Multinational Forces-Iraq (MNF-I) may be the single most 
important command in the Nation's defense establishment. The 
Nation will entrust him with the operational command and 
welfare of over 130,000 American servicemembers, many of whom 
will be deployed in Baghdad in the middle of a protracted and 
bloody sectarian battle over the future of Iraq. He will take 
over from General George Casey, who has served in this position 
since 2004.
    General Petraeus is well known to this committee. In July 
2004 and again in June 2005, General Petraeus provided the 
committee valuable insights from his experiences as an infantry 
division commander during and immediately after the invasion of 
Iraq and from his tenure as the commander of early U.S. efforts 
to train and equip Iraqi security forces, experiences that he 
no doubt will draw heavily upon in the days ahead.
    General Petraeus is well-qualified for this command, widely 
recognized for the depth and the breadth of his education, 
training, and operational experience. Noteworthy is his recent 
leadership of the team that wrote the new counterinsurgency 
manual for the Army and Marine Corps. In addition to our 
interest in his assessment of current conditions and 
operations, many of our questions this morning will probe the 
theory and practice of counterinsurgency and their application 
in today's Iraq, which is not experiencing a traditional 
insurgency, but rather a mixture of sectarian violence and an 
emerging civil war, as well as an insurgency against the 
government.
    Prime Minister Maliki has acknowledged that the crisis in 
Iraq is a political crisis. President Bush says this troop 
surge and other increased U.S. commitments are based upon the 
Iraqi political leaders keeping their pledges to meet 
benchmarks on the military, political, and economic front. He 
says this even though Iraqi political leaders have not followed 
through on their pledges in the past.
    Secretary Gates on January 12 described four categories of 
benchmarks that we would be monitoring. In the first are the 
military benchmarks, including deployment of effective Iraqi 
forces into Baghdad and access to all neighborhoods without 
political interference. In the second category of Secretary 
Gates are those benchmarks relating to the whole part of the 
strategy on how effectively Iraqi forces control an area once 
it is cleared. In the third are benchmarks relating to the 
economic recovery of a controlled area. In the fourth are 
benchmarks relating to the Iraqis reaching political 
compromises on outstanding issues, including provincial 
elections, power-sharing, and the distribution of oil revenues.
    This morning we will probe General Petraeus' assessment of 
the current situation in Iraq. We will want to understand his 
views on the importance of the Iraqis meeting their commitments 
and what pressure are we willing to place on the Iraqi 
leadership to meet the benchmarks that they have agreed to. We 
will ask for his assessment of the readiness of U.S. forces in 
and on their way to Iraq for counterinsurgency operations. We 
will want to hear how he intends to employ forces that are now 
surging into Iraq. We will want to know what timeline he has in 
mind to measure the pace and scope of Iraqi security forces' 
assumption of the counterinsurgency fight.
    We all appreciate General Petraeus' service and his 
willingness to lead our forces at this critical and dangerous 
time.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. Mr. Chairman, I 
want to thank you for your rapid consideration of this 
nomination. You and your staff have made this possible and I 
appreciate it very much. I hope we can, at the completion of 
the testimony today, move quickly forward to the vote on 
General Petraeus' nomination. But again, I want to thank you 
for the rapid consideration of this important nomination.
    General Petraeus, I join Chairman Levin in welcoming you 
here today and congratulating you. It is hard to imagine a more 
important military nomination than that of General David 
Petraeus. General, you know better than others the stakes in 
this war, the benefits of success, and the potential 
catastrophic consequences of failure. You, having literally 
written the book on counterinsurgency, understand the strategy 
and tactics that must guide the President's increase in U.S. 
force levels. You, General, will have great responsibility for 
the course of future American actions in Iraq.
    But to state the obvious, your job will be very difficult. 
We have made many mistakes in this war. From the initial 
invasion, we had too few troops in Iraq and we never redressed 
this deficiency. We played whack-a-mole instead of clearing and 
holding. We adopted an inadequate and unrealistic light 
footprint coalition strategy that focused on turning over to 
Iraqis missions that they were plainly unable to complete.
    Administration officials frequently and repeatedly issued 
unjustifiably optimistic assessments and predictions about the 
situation in Iraq. We responded ineffectively to the hostile 
actions of Sunni, Shia, and foreign fighters alike and the 
vagaries of the Iraqi government.
    Somewhat dismaying that only now, after nearly 4 years at 
war in Iraq, is the United States moving toward a traditional 
counterinsurgency strategy aimed first at the protection of the 
Iraqi population and supported by troop levels appropriate to 
their mission.
    Whether the projected surge is sufficient to accomplish all 
that our leaders will ask of our troops remains an open 
question in my mind and I look forward, General, to your 
testimony on this score. But I believe that the fundamental 
components of the new strategy are needed in Iraq, and that 
they have been necessary for a long time. By quelling the 
violence in Baghdad and with your leadership, improving our 
training and reinforcement efforts, we will allow the economic 
and political process to move forward and create a situation 
which will permit confidence and optimism.
    While I believe that this will present a solid chance of 
success, I would note again that the new plan does not on its 
own guarantee success. Bringing down the violence in Iraq will 
help give Prime Minister Maliki and others the political space 
they need to pursue reconciliation. But it is up to the Iraqis 
to make these tough decisions. It is absolutely imperative that 
they seize this opportunity. It may well be their last.
    We have needed a new military leadership in Iraq for some 
time and there is no one in the U.S. military better suited to 
implement the President's new strategy than General Petraeus. I 
am confident that you will receive broad support in the Senate, 
as will Admiral Fallon, who has been nominated as the next head 
of Central Command. It is absolutely essential that the Senate 
act promptly on your nomination. I hope that following Senate 
action the President will direct you to take the next flight to 
Iraq and assume command. Your role is that important.
    If confirmed, this will be your third assignment in Iraq 
since the war began in March 2003. You led the 101st Airborne 
Division with great distinction in northern Iraq in 2003. You 
were later recognized for making significant improvements in 
the training of the Iraqi security forces after a slow start 
and missteps during the early months of the Coalition 
Provisional Authority.
    Most recently, as Commander of the U.S. Army's Combined 
Arms Center at Fort Leavenworth, you led the development of the 
Army's doctrine for military operations in a counterinsurgency 
environment. This revised doctrine is designed to merge 
traditional approaches to counterinsurgency operations with the 
realities of the 21st century.
    Mr. Chairman, in the foreword to the new field manual 
General Petraeus wrote, ``Conducting a successful 
counterinsurgency campaign requires a flexible, adaptive force 
led by agile, well-informed, culturally astute leaders.'' I 
believe that this committee has just such a leader before it 
today and that he is someone we can look to for leadership in 
this, America's final chance to prevail in Iraq.
    General, I thank you and your family for the sacrifices you 
have made and your career of selfless service to our Nation. I 
look forward to your testimony today.
    Chairman Levin. Thank you, Senator McCain.
    General Petraeus.

  STATEMENT OF LTG DAVID H. PETRAEUS, USA, TO BE GENERAL AND 
              COMMANDER, MULTINATIONAL FORCES-IRAQ

    General Petraeus. Mr. Chairman, Senator McCain, members of 
the committee:
    Thank you for the opportunity to appear before you. I would 
like to begin this morning by briefly reviewing the situation 
in Iraq, explaining the change in focus of the new strategy, 
and discussing the way ahead. This statement is a bit longer 
than usual, but, as I discussed with you last week, Mr. 
Chairman, I believe it is important that the committee hear it 
and I appreciate the opportunity to present it.
    The situation in Iraq has deteriorated significantly since 
the bombing this past February of the al-Askari Mosque in 
Samarra, the third holiest Shia Islamic shrine. The increase in 
the level of violence since then, fueled by the insurgent and 
sectarian fighting that spiraled in the wake of the bombing, 
has made progress in Iraq very difficult and created 
particularly challenging dynamics in the capital city of 
Baghdad.
    Indeed, many Iraqis in Baghdad today confront life or 
death, stay or leave decisions on a daily basis. They take 
risks incalculable to us just to get to work, to educate their 
children, and to feed their families.
    In this environment, Iraq's new government, fourth in 3\1/
2\ years, has found it difficult to gain traction. Though 
disappointing, this should not be a surprise. We should recall 
that after the liberation of Iraq in 2003 every governmental 
institution in the country collapsed. A society already 
traumatized by decades of Saddam's brutal rule was thrown into 
complete turmoil and the effects are still evident throughout 
the country and in Iraqi society.
    Iraq and its new government have been challenged by 
insurgents, international terrorists, sectarian militias, 
regional meddling, violent criminals, governmental dysfunction, 
and corruption. Iraq's security forces and new governmental 
institutions have struggled in this increasingly threatening 
environment and the elections that gave us such hope actually 
intensified sectarian divisions in the population at the 
expense of the sense of Iraqi identity.
    In this exceedingly difficult situation, it has proven very 
hard for the new government to develop capacity and to address 
the issues that must be resolved to enable progress.
    The escalation of violence in 2006 undermined the coalition 
strategy and raised the prospect of a failed Iraqi state, an 
outcome that would be in no group's interest save that of 
certain extremist organizations and perhaps states in the 
region that wish Iraq and the United States ill. In truth, no 
one can predict the impact of a failed Iraq on regional 
stability, the international economy, the global war on terror, 
America's standing in the world, and the lives of the Iraqi 
people.
    In response to the deterioration of the situation in Iraq, 
a new way ahead was developed and announced earlier this month. 
With implementation of this approach, the mission of MNF-I will 
be modified, making security of the population, particularly in 
Baghdad, and in partnership with Iraqi forces, the focus of the 
military effort. For a military commander, the term ``secure'' 
is a clearly defined doctrinal task, meaning to gain control of 
an area or terrain feature and to protect it from the enemy. 
Thus, the task will be clear-cut, though difficult. Certainly, 
upcoming operations will be carried out in full partnership 
with Iraqi forces, with them in the lead whenever possible and 
with arm's length when that is not possible.
    Transition of Iraqi forces in provinces to Iraqi control 
will continue to feature prominently in the coalition plan and, 
as recommended by the Iraqi Study Group, the advisor effort 
will be substantially reinforced.
    The primacy of population security in the capital will mean 
a greater focus on that task, particularly in the most 
threatened neighborhoods. This will, of course, require that 
our unit commanders and their Iraqi counterparts develop a 
detailed appreciation of the areas in which they will operate, 
recognizing that they may face a combination of Sunni 
insurgents, international terrorists, sectarian militias, and 
violent criminals.
    Together with Iraqi forces, a persistent presence in these 
neighborhoods will be essential. Different approaches will be 
required in different locations. Whatever the approach, though, 
the objective will be to achieve sufficient security to provide 
the space and time for the Iraqi government to come to grips 
with the tough decisions its members must make to enable Iraq 
to move forward. In short, it is not just that there will be 
additional forces in Baghdad. It is what they will do and how 
they will do it that is important.
    Some of the members of this committee have observed that 
there is no military solution to the problems of Iraq. They are 
correct. Ultimate success in Iraq will be determined by actions 
in the Iraqi political and economic arenas on such central 
issues as governance, the amount of power devolved to the 
provinces and possibly regions, the distribution of oil 
revenues, national reconciliation, resolution of sectarian 
differences, and so on.
    Success will also depend on improvements in the capacity of 
Iraq's ministry, in the provision of basic services, in the 
establishment of the rule of law, and in economic development. 
It is, however, exceedingly difficult for the Iraqi government 
to come to grips with the toughest issues it must resolve while 
survival is the primary concern of so many in Iraq's capital. 
For this reason, military action to improve security, while not 
wholly sufficient to solve Iraq's problems, is certainly 
necessary, and that is why additional U.S. and Iraqi forces are 
moving to Baghdad.
    The way ahead is designed to be a comprehensive approach. 
Indeed, the objectives of helping Iraqis increase the capacity 
of their governmental institutions, putting Iraq's unemployed 
to work, and improving the lot in life of Iraqi citizens 
require additional resources, many of which will be Iraqi. In 
carrying out the non-kinetic elements of the strategy, however, 
our soldiers, sailors, airmen, marines, and civilians downrange 
must get all the help they can from all the agencies of our 
Government.
    There is a plan to increase that assistance and it is 
hugely important. This clearly is the time for the leaders of 
all our governmental departments to ask how their agencies can 
contribute to the endeavor in Iraq and to provide all the 
assistance that they can. Our military is making an enormous 
commitment in Iraq. We need the rest of the departments to do 
likewise, to help the Iraqi government get the country and its 
citizens working and to use Iraq's substantial oil revenues for 
the benefit of all the Iraqi people.
    Having described the general approach, I would like to 
offer a word on expectations. It will take time for the 
additional forces to flow to Iraq, time for them to gain an 
understanding of the areas in which they will operate, time to 
plan with and get to know their Iraqi partners, time to set 
conditions for the successful conduct of security operations, 
and of course time to conduct those operations and then to 
build on what they achieve.
    None of this will be rapid. In fact, the way ahead will be 
neither quick nor easy, and there undoubtedly will be tough 
days. We face a determined, adaptable, barbaric enemy. He will 
try to wait us out. In fact, any such endeavor is a test of 
wills and there are no guarantees. The only assurance I can 
give you is that, if confirmed, I will provide MNF-I the best 
leadership and direction I can muster, I will work to ensure 
unity of effort with the ambassador and our Iraqi and coalition 
partners, and I will provide my bosses and you with forthright 
professional military advice with respect to the missions given 
to MNF-I and the situation on the ground in Iraq.
    In that regard, I would welcome opportunities to provide 
periodic updates to this body. Beyond that, I want to assure 
you that should I determine that the new strategy cannot 
succeed, I will provide such an assessment.
    If confirmed, this assignment will be my fourth year or 
longer deployment since the summer of 2001, three of those to 
Iraq. My family and I understand what our country has asked of 
its men and women in uniform and of their families since 
September 11. In fact, I would like to take this opportunity to 
thank the American people for their wonderful support in recent 
years of our men and women in uniform.
    Tom Brokaw observed to me one day in northern Iraq that 
those who have served our Nation since September 11 comprise 
the new greatest generation. I agree strongly with that 
observation and I know the members of this committee do, too.
    Over the past 15 months I have been privileged to oversee 
the organizations that educate our Army's leaders, draft our 
doctrine, capture lessons learned, and help our units prepare 
for deployment. This assignment has provided me a keen 
awareness of what we have asked of our soldiers and of their 
families. In view of that, I applaud the recent announcement to 
expand our country's ground forces. Our ongoing endeavors in 
Iraq, Afghanistan, and elsewhere are people-intensive and it is 
heartening to know that there will be more soldiers and marines 
to shoulder the load.
    I recognize that deploying more forces to Iraq runs counter 
to efforts to increase the time at home for our troops between 
deployments. I share concerns about that. However, if we are to 
carry out the MNF-I mission in accordance with the new 
strategy, the additional forces that have been directed to move 
to Iraq will be essential, as will again greatly increased 
support by our Government's other agencies, additional 
resources for reconstruction and economic initiatives, and a 
number of other actions critical to what must be a broad, 
comprehensive, multifaceted approach to the challenges in Iraq.
    Many of the emails I have received in recent weeks have had 
as their subject line ``Congratulations, I think.'' I 
understand the message they are conveying. I know how heavy a 
rucksack I will have to shoulder in Iraq, if confirmed. I am 
willing to take on the position for which I have been nominated 
because I believe in serving one's Nation when asked, because I 
regard it as a distinct honor to be able to soldier again with 
those who are part of the brotherhood of the close fight, and 
because I feel an obligation to help the ``Shabil Iraq,'' the 
vast majority of whom have the same desires of people the world 
over: security for themselves and their loved ones, 
satisfaction of their basic needs, and an opportunity to better 
their lot in life.
    In closing, the situation in Iraq is dire. The stakes are 
high. There are no easy choices. The way ahead will be very 
hard. Progress will require determination and difficult U.S. 
and Iraqi actions especially the latter, as ultimately the 
outcome will be determined by the Iraqis. But hard is not 
hopeless. If confirmed, I pledge to do my utmost to lead our 
wonderful men and women in uniform and those of our coalition 
partners in Iraq as we endeavor to help the Iraqis make the 
most of the opportunity our soldiers, sailors, airmen, and 
marines have given to them.
    Thank you very much.
    Chairman Levin. Thank you, General. Again, we thank you for 
your service. We thank you for your very eloquent testimony. 
Thank your family as well for us, if you would.
    There are standard questions which we ask of nominees which 
we will put to you right now. Have you adhered to applicable 
laws and regulations governing conflicts of interest?
    General Petraeus. Yes, sir.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Petraeus. No, sir.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    General Petraeus. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Petraeus. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    General Petraeus. Yes, sir.
    Chairman Levin. Will you agree, if confirmed, to appear and 
testify upon request before this committee?
    General Petraeus. Yes, sir.
    Chairman Levin. Do you agree to give your personal views 
when asked before this committee to do so, even if those views 
differ from the administration in power?
    General Petraeus. Yes, sir.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    General Petraeus. Yes, sir.
    Chairman Levin. Thank you.
    We will have an 8-minute round to begin with.
    General Petraeus, General Casey says that, ``the longer 
that U.S. forces continue to bear the main burden of Iraq's 
security it lengthens the time that the Government of Iraq has 
to take the hard decisions about reconciliation and dealing 
with the militias.'' General Abizaid said recently, ``I believe 
that more American forces prevent the Iraqis from taking more 
responsibility for their own future.''
    Do you agree with those two generals?
    General Petraeus. Sir, my mission will be different than 
the mission that they had, if confirmed. In fact, I talked to 
General Abizaid and General Casey both in the past week and 
they both support the increase in U.S. forces as a way of 
helping the Iraqi government get the time and space that it 
needs to be able to come to grips with the difficult decisions 
that they in fact identified.
    Chairman Levin. We will ask General Casey when he is before 
us as to whether or not he still stands with the statement 
which he has made and which General Abizaid has also made, 
along the line that the more American forces that we provide 
the less likely it is that the Iraqis will take responsibility 
for their own future.
    On the question of benchmarks, General, President Bush says 
that the Iraqis have agreed to meet certain political, 
economic, and military benchmarks. Are you familiar with the 
President's statement?
    General Petraeus. Yes, sir.
    Chairman Levin. Have you seen those benchmarks?
    General Petraeus. Sir, I have not seen lists of them. I am 
familiar with his statement and of course with the benchmarks 
that you outlined that Secretary Gates mentioned earlier.
    Chairman Levin. Have you seen the actual benchmarks that 
the President referred to?
    General Petraeus. If you are talking about the slides and 
the briefing, sir? I am not sure which you are actually 
referring to.
    Chairman Levin. The President has referred to benchmarks. 
He has said that the Iraqis have agreed to benchmarks and that 
we will hold the Iraqis to those benchmarks. Have you seen the 
benchmarks the President referred to?
    General Petraeus. Yes, that is correct. I know what you are 
talking about sir, in terms of what they have agreed to provide 
in terms of the military forces in Iraq, money for the 
reconstruction, money for foreign military sales, and so forth, 
yes, sir.
    Chairman Levin. Will you see to it that we get a copy of 
those benchmarks?
    General Petraeus. Yes, sir.
    [The information referred to follows:]

    The requested benchmarks have been provided to the Office of the 
Secretary of Defense which is coordinating turnover of this 
information.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. Do you agree that we will hold the Iraqi 
government to the benchmarks that it has announced?
    General Petraeus. We certainly will to the very best of our 
ability, sir.
    Chairman Levin. How are we going to do that? What is the 
leverage on them?
    General Petraeus. Sir, there are a number of different ways 
of leverage. Among them are providing assistance or withholding 
assistance in various forms of the lines of operation that are 
pursued in Iraq.
    Chairman Levin. Do you agree that the success of the 
strategy is dependent upon the Iraqis carrying out their 
commitments?
    General Petraeus. I do, sir.
    Chairman Levin. Over the last several weeks, we have heard 
about rhetorical off-ramps that are built into the flow of 
21,000 additional troops, which implies that the U.S. 
commitment is conditional. Secretary Gates said that there is 
plenty of opportunity before many of the 21,000 additional 
troops arrive to evaluate, ``whether the Iraqis are fulfilling 
their commitments to us.''
    Now, a story in this morning's Washington Post indicates 
that you do not intend to use off-ramps to slow or cancel the 
deployment of additional U.S. forces to Iraq even if the Iraqis 
fail to meet their commitments. Is that story true?
    General Petraeus. No, sir, it is not. I think that was, ``a 
source close to General Petraeus'' or something like that. What 
I would do in the event that the Iraqi benchmarks are not met 
is obviously discuss that with my boss at Central Command, with 
the Secretary of Defense, and then, frankly, determine what it 
is that we are going to do.
    Chairman Levin. So as of this time, do you know whether the 
flow of additional forces is conditional upon the Iraqis 
keeping their political, economic, and military commitments?
    General Petraeus. Sir, I do not believe that there are 
specific conditions that are established. I know again that 
there is certainly a keen awareness of the Iraqis and what it 
is that they are supposed to do. In fact, General Odierno has 
reported to me that three to four of the battalions, of the 
Iraqi commitment, actually are already in Baghdad, and that 
they came in at something like the 80 percent figure. That 
includes their leave numbers, however.
    Chairman Levin. Do you believe that it is important that 
the Iraqis understand that they need to reach the political 
settlements which are essential to resolve the sectarian 
violence and to defeat the hard-core insurgents?
    General Petraeus. It is very important, sir.
    Chairman Levin. What forms would that pressure take?
    General Petraeus. Sir, I think everything from moral 
suasion in meetings to again either giving additional or 
withholding assistance.
    Chairman Levin. Could that also mean providing or not 
providing parts of the 21,000 troops?
    General Petraeus. Sir, it could.
    Chairman Levin. Now, we understand from columnist David 
Broder and from what you said here this morning that you are 
willing to provide a regular report every couple weeks on Iraqi 
progress on meeting the agreed upon benchmarks. Is that 
accurate?
    General Petraeus. Sir, I would be happy to provide updates 
to this body on whatever basis. I would like to make sure it is 
long enough to make sure it is meaningful and yet certainly 
short enough so you can keep track of what is going on.
    Chairman Levin. We appreciate that, and we also want you to 
not be bogged down with reports. We like them regularly, but we 
do not want you to be focusing on reporting to us. You have 
other duties to perform.
    General Petraeus. Right, sir.
    Chairman Levin. But we would then expect those regular 
reports, because for some of us and I think many of us it is 
critically important that that pressure be felt by the Iraqi 
government. They have not complied with previous commitments 
that they have made. I am very doubtful as one Senator that it 
is likely they are going to carry out the other commitments 
that they have made. I just think history should make us very 
dubious about the likelihood that they are going to carry out 
these critically important commitments in the political area as 
well as the military and economic area.
    But those reports, to the extent that you will make those 
regularly, will be valuable to us in determining whether or not 
the Iraqi government is doing what only they can do, which is 
to work out the settlement of differences and to carry out 
their commitments.
    Reports do not constitute pressure by themselves. They are 
useful, but simply reporting that Iraqis have failed to achieve 
a benchmark does not mean much if there are no consequences to 
that failure. As I said, they have consistently failed to meet 
their commitments to increase forces in Baghdad, to stay on 
schedule for the drafting of their constitution, to hold a 
national reconciliation conference, or disarm the sectarian 
militias. So consequences need to be clear, real, significant, 
and used if pressure is going to make a difference in terms of 
Iraqi behavior. Would you agree with that?
    General Petraeus. I would, sir.
    Chairman Levin. General, will U.S. forces have unfettered 
access and complete freedom of action in all neighborhoods, 
without Iraqi political interference?
    General Petraeus. I am told they already do, sir, but it is 
something I will certainly confirm, if confirmed.
    Chairman Levin. Who will have the operational and tactical 
control of U.S. battalions that are partnered with the nine 
Iraqi brigades in the nine sectors of Baghdad?
    General Petraeus. U.S. commanders, sir.
    Chairman Levin. Who will have operational and tactical 
control of the nine Iraqi brigades themselves?
    General Petraeus. I believe it is Iraqi commanders, sir, 
and to ensure unity of effort what General Odierno is already 
working on in fact is linkages at each of the levels of 
command, co-located command posts, terms of reference, and so 
forth.
    Chairman Levin. What about the U.S. adviser teams that are 
embedded with Iraqi units that are operating in Baghdad? Who 
will have operational and tactical control of those teams?
    General Petraeus. U.S. units, sir.
    Chairman Levin. Who will be responsible for the force 
protection of U.S. adviser teams with Iraqi units?
    General Petraeus. The unit in whose area they are located, 
sir.
    Chairman Levin. The U.S. unit?
    General Petraeus. Yes, sir.
    Chairman Levin. Thank you.
    My time has expired. Thank you.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    General Petraeus, in your view, since you have been 
intimately involved in Iraq from the beginning, suppose we 
announce tomorrow that we would withdraw within 4 to 6 months. 
What are the results there in Iraq and in the region?
    General Petraeus. Sir, I think that sectarian groups would 
obviously begin to stake out their turf, try to expand their 
turf. They would do that by greatly increased ethnic cleansing. 
There is the very real possibility of involvement of countries 
from elsewhere in the region around Iraq entering Iraq to take 
sides with one or the other groups.
    There is the possibility certainly of an international 
terrorist organization truly getting a grip on some substantial 
piece of Iraq. There is the possibility of problems in the 
global economy should in fact this cause a disruption to the 
flow of oil and a number of other potential outcomes, none of 
which are positive.
    Senator McCain. Eventually there is every likelihood of a 
scenario of chaos?
    General Petraeus. Absolutely, yes, sir.
    Senator McCain. Suppose we send you over to your new job, 
General, only we tell you that you cannot have any additional 
troops. Can you get your job done?
    General Petraeus. No, sir.
    Senator McCain. Suppose that we send you additional troops 
and we tell those troops that, we support you, but we are 
convinced that you cannot accomplish your mission and we do not 
support the mission we are sending you on. What effect does 
that have on the morale of your troops?
    General Petraeus. It would not be a beneficial effect, sir. 
Obviously, a commander would like to go forward with as much 
flexibility as he can achieve. I was assured yesterday by the 
Secretary of Defense, by the way, that if we need additional 
assets, my job is to ask for them. If they are not provided in 
some case, my job is to tell my boss the risk involved in 
accomplishing the mission without the assets that are required. 
At some point, of course, you may have to go back and say that 
you cannot accomplish the mission because of the assets that 
have not been provided.
    Senator McCain. You are fairly familiar with the Iraqi 
leadership. You have known these individuals. Based on your 
experience with them, how effective do you think threats of 
withdrawal of U.S. troops are in achieving real progress in 
Iraq?
    General Petraeus. Sir, there are certain elements in the 
government that might actually welcome withdrawal. There are 
others certainly that would fear it greatly. It certainly 
depends on which side of these various divides they're on. I do 
not think that the responsible members of that government right 
now certainly want us to withdraw, and if it is levers that we 
are after, again withdrawing support from a specific 
organization or perhaps institution in my experience was more 
effective in trying to get a desired outcome.
    Senator McCain. Based on your knowledge of the Army and its 
state of readiness, how long do you believe the increased troop 
levels and tempo of operations can be sustained?
    General Petraeus. Sir, my understanding is that there are 
contingency plans being developed to sustain the surge, the 
increased force levels, if that is required. Having said that, 
as I mentioned in my opening statement, I am keenly aware of 
the strain on our soldiers and marines in particular, and on 
our families, certainly the other members of the military who 
are in positions that have been deploying, and it is for that 
reason that, as I mentioned, I applaud the increase in our 
ground forces in particular.
    Senator McCain. You were a young officer following our 
defeat in the Vietnam War. Would you contemplate the effects of 
defeat in Iraq as compared with an additional, very difficult 
strain on our men and women in the military who are having to 
serve more than we would want them to?
    General Petraeus. Sir, obviously what our men and women in 
the military want to do, I think, is to accomplish their 
mission and then to come home.
    Senator McCain. I am saying it took us a long time to 
recover from losing the war, did it not?
    General Petraeus. Yes, sir.
    Senator McCain. Do you understand the command and control 
relationships between the American and Iraqi forces in this new 
plan? I am very concerned about unity of command.
    General Petraeus. Sir, I share your concern. Again, on the 
one hand, though, we have pushed Iraqis to do more, to take 
charge in many cases, and so we have in fact almost a good 
news, bad news story. The good news is that the Iraqis are 
willing to take command in many cases. The bad news is that 
makes us have to achieve unity of effort rather than unity of 
command, and that is why we would have to have those 
relationships all the way up and down, with command posts co-
located and so forth to assure that.
    Senator McCain. We need to get that sorted out, General.
    General Petraeus. Yes, sir.
    Senator McCain. I know of no successful military operation 
where you have dual command.
    In your judgment, what is a reasonable estimate of the time 
needed to demonstrate whether such efforts, these efforts, are 
having success?
    General Petraeus. Sir, under the current plan as I 
understand it, the final brigade would be operational in Iraq 
at the end of May, giving them time to get established, to 
understand the situation on the ground. Other forces will have 
already certainly been moving into their areas of operation. I 
would think that we would have indicators at the least during 
the late summer of the ability to clear and hold and then build 
in the Baghdad area and to secure that population.
    Senator McCain. Will all five brigades be massed 
simultaneously or is there some other plan to have all five 
brigades move more slowly into Baghdad?
    General Petraeus. Sir, I have not----
    Senator McCain. In other words, are you confident that they 
are getting them over there as quickly as possible?
    General Petraeus. Sir, I have asked that those forces be 
moved as rapidly as possible, if I am confirmed.
    Senator McCain. Are you confident that they will be?
    General Petraeus. Sir, the Secretary and the Chairman of 
the Joint Chiefs said yesterday that they are in fact scrubbing 
that, if you will, to determine how quickly they can in fact 
move those forces there.
    Senator McCain. You were in Haiti and Bosnia and you are 
familiar with Kosovo. It took an overwhelming number of 
military boots on the ground in Kosovo and Bosnia in order to 
bring about the end of what was basically sectarian violence, 
Serbs killing Muslims, Muslims or in the case of Kosovo, 
Albanians, right?
    General Petraeus. Yes, sir.
    Senator McCain. Yet your numbers, by any estimate or 
formula that you use, you are receiving are either inadequate 
or bare minimum. Does that concern you?
    General Petraeus. It does, sir. If you look at the 
counterinsurgency manual, for example, and you have the 1-to-50 
ratio of counterinsurgents to citizens, you would say that, 
well, for Baghdad's population you should have somewhere around 
120,000 security forces. If you add all of the U.S. forces that 
will be on the ground when we have the full increase in forces, 
including Special Operations Forces, all the Iraqi forces, 
military and police, you get to about 85,000. Not all of those 
are as effective as we might want them to be, particularly in 
the police side. However, there are tens of thousands of 
contract security forces and ministerial security forces that 
do in fact guard facilities and secure institutions and so 
forth that our forces, coalition or Iraqi forces, would 
otherwise have to guard and secure, and so that does give me 
reason to believe that we can accomplish the mission in Baghdad 
with the additional forces.
    Senator McCain. How is the morale?
    General Petraeus. Sir, the morale is good. Troops in the 
field take it one day at a time, sometimes one foot in front of 
the other foot, and continue to move forward to accomplish 
their mission.
    Senator McCain. Thank you very much, Mr. Chairman.
    Thank you, General.
    Chairman Levin. Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman, and welcome, 
General Petraeus.
    General Petraeus, I have concerns about this policy, but I 
have every intention of voting for you. I think you are an 
outstanding military officer. Our soldiers really deserve the 
best and I think they are getting it with your service, even 
though we have some real reservations, I do, just generally on 
the policy.
    I think Americans really are looking and asking about this 
timeline, these benchmarks which you referred to and responded 
to the chairman and also Senator McCain. They are really 
wondering now, with the announcement by the President about 
these additional kind of forces, what are the benchmarks and 
whether they can be met. I know this is an old issue, an old 
question, and it will be older before I am sure the end of the 
hearing. But you have talked about late summer in terms of the 
military aspect. With regard to the security, the President has 
even indicated in his speech that he believed that all the 
provinces, he thought, would be secured by the fall.
    To establish its authenticity, the Iraqi government plans 
to take responsibility for security in all of Iraq's provinces 
by November. That is security. We are talking about the 
political decisions that have been reached earlier. What are 
really the benchmarks that you have established yourself, that 
they will have to be realized to really know whether we are 
making progress?
    General Petraeus. Sir, I have general benchmarks in my 
mind. Obviously, until I can go over to Iraq, if confirmed, and 
sit down with the staff over there and work through the 
specific timing of which battalions and brigade headquarters 
arrive when, when they expect to get certain decisions to see 
what Iraqi resources are committed, and so forth, and what 
timeline.
    Senator Kennedy. I am thinking now in terms of the non-
military, I mean of the oil revenue law, the provincial 
elections, and the demilitarization of the militias. Do you 
have these benchmarks established now? I think Americans want 
to know when we are going to expect we can measure some 
progress. You have been very frank in indicating you would come 
back to the committee. You have been very frank in indicating 
that if this does not work as an operation you do not rule out 
moving in another direction.
    But what is the best you can tell the American people as to 
what would be the benchmarks? You have given it to us with 
regard to security. Is there any additional information you can 
give us with regards to reaching the benchmarks on these other 
items which are so essential, obviously, in terms of the new 
direction of Iraq?
    General Petraeus. Sir, I cannot give you dates at this 
point in time. Again, I can tell you, however, that I have in 
fact discussed some of this already just in passing with Deputy 
Prime Minister of Iraq Barham Salih and with others who have 
called to congratulate me on the nomination.
    Senator Kennedy. You were kind enough to drop off a nice 
book when you were good enough to visit and I have gotten 
through a good part of it during the past few days and over the 
weekend. In that were these words, effectively: ``Sometimes, 
the more force is used the less effective it is. Any use of 
force produces many effects, not all of which can be foreseen. 
The more force applied, the greater the chance of collateral 
damage and mistakes. Using substantial force also increases the 
opportunity for insurgent propaganda to portray lethal military 
activities as brutal.''
    The manual talks about the importance of the decisive 
battle for the people's minds. Many have argued that the 
overwhelming military force presence in Iraq actually will 
inflame the insurgency. What is your view on that?
    General Petraeus. Sir, I think that at this point in 
Baghdad the population just wants to be secure and, truthfully, 
they do not care who does it. They would like it to be 
legitimate Iraqi security forces that are fair and impartial. I 
heard, for example, early feedback that a Kurdish unit that has 
moved into a mixed area in Baghdad was actually received well 
because in fact they provided some additional security that did 
not exist before.
    Again, if confirmed, that is something I obviously have to 
see for myself on the ground, to walk the streets, to talk to 
the people, and to get a sense of that for myself. But that is 
my personal view right now from afar.
    Senator Kennedy. Some have said, if you have 140,000 troops 
over there who are not able to gain security, why do you 
believe an additional 22,000 are likely to gain it?
    General Petraeus. Sir, to some degree it has to do with how 
they are used. Again, if the mission is as it is now under the 
new approach, to focus on the security of the population, then 
forces must locate with and live with that population, 
certainly again link arms with Iraqi forces in this particular 
case, coordinating with all the others that might be in an area 
as well.
    Senator Kennedy. The idea of tens of thousands of American 
troops in combat in downtown Baghdad, what is your reaction to 
whether that really helps win the hearts and minds of the 
people or whether it is perceived as increasing hostility by 
American soldiers? How do you measure that? This is also 
referred to in the book.
    General Petraeus. Sir, obviously it depends literally on 
how those forces conduct themselves, how they carry out their 
missions, if they are both respectful and firm as required. 
Certainly there will be a need to kill or capture those bad 
elements that I talked about. On the other hand, what we want 
to do, of course, is to clear areas as quickly as possible to 
provide security for them of a persistent nature and then to 
enable the holding and the building piece that is the real key 
to achieving the support of the population.
    Senator Kennedy. You have in your manual ``Long-term 
success depends on the people taking charge of their own 
affairs, consenting to the government's rule.'' What is the 
time? The number of soldiers now that are being sent over 
there, how long are those soldiers going to be sent over there? 
We have heard words about escalation, we have words of surge. 
Is this going to be permanent? Is it temporary? What is the 
time limitation that you can tell us about?
    General Petraeus. Sir, I do not know what the time 
limitation is at this point.
    Senator Kennedy. At this point therefore we should assume 
that they will remain over there until we hear further from 
you?
    General Petraeus. As they are needed for that particular 
mission, yes, sir. Senator, if I could, I think it is important 
to remember that this particular government, the Prime Minister 
Maliki government, has only been in office 8 months. They are 
the fourth Iraqi government in 3\1/2\ years and, given the 
situation in Baghdad, I think it is not wholly surprising that 
they have had a tough time getting their feet on the ground.
    In fact, there are some signs certainly literally in recent 
days and weeks that there is a stiffer approach.
    Senator Kennedy. I thank you, General. I think many of us 
are concerned that we have had surges in the past at Najaf, 
Fallujah, Baghdad, and after the Samarra temple, and they have 
not been successful, and there is concern, which I share, about 
the surge at the present time, whether this can really achieve 
the objectives which you have outlined. But in any event, I 
appreciate your service. Thank you for your willingness to 
lead.
    General Petraeus. Thank you, Senator.
    Chairman Levin. Thank you, Senator Kennedy.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    General Petraeus, I think I do not recall anyone being so 
praised by all sides as you have been. I honestly believe you 
are the right person for this very difficult task before us. I 
have enjoyed being with you on three different occasions in 
Iraq and we got the very strong impression that you had a 
handle on things, and I appreciate what you are about to get 
into.
    Let me voice a concern that I have, and I think that I am 
not going to ask you to respond to a question unless there is 
time at the end of my questioning. That is on the justice 
system that we hear so much about. I know there are several 
attorneys that will probably be addressing this in questions 
after I am completed.
    But any time a top lieutenant to al-Sadr, one who has been 
involved in torture, assassinations, and then is just turned 
loose at the request of the Prime Minister, it is something 
that bothers me a great deal. I have heard Senator Sessions 
talk about analogies between Alabama incarcerations and what is 
happening over there. In Texas, some 170,000 people are 
incarcerated, while only 28,000 are in Iraq. We know it is a 
problem that needs to be addressed and if there is time I will 
ask you a question on that.
    But I wanted to first, before doing that, get into the 
success story of Somalia. The train and equip program there--I 
had occasion to be in Ethiopia on numerous occasions while they 
were going through this program, and when they were called upon 
to go with us into Somalia it was a huge success.
    I am wondering if there is anything you can draw on from 
that success that might have application to what your mission 
is going to be in Iraq?
    General Petraeus. Sir, I will certainly look at it. I must 
be candid and say I have not seen something that is directly 
transportable so far. Certainly there are ways that the 
assistance has been provided there that has been unique and 
useful, I think, but that is something I will certainly look 
at.
    Senator Inhofe. This authorization committee has been very 
straightforward in coming up with funds for train and equip, 
but also for the Commanders' Emergency Response Program (CERP). 
I heard you say in your opening statement, you talked about 
more resources in the neighborhoods, things that you can do in 
the neighborhoods. I know that I have talked to General 
Chiarelli and you about CERP.
    Tell us a little bit about how more effective it would be 
if you have more capability to respond to some of these needs 
immediately than going through the system that we are more 
accustomed to?
    General Petraeus. Sir, in the counterinsurgency field 
manual there is actually a line in there that says ``Money is 
ammunition,'' and at certain points money can be the most 
important ammunition. There are certainly points when real 
ammunition is the best ammunition, but there are times 
certainly, once you have done the clear and hold, where you are 
trying to build, where the most important asset is that ability 
to help get streets cleaner, connect sewage lines, make small 
improvements in the lives of people that are very meaningful 
right off the bat. That has been aided enormously by CERP.
    I would like to add, though, that as I have thought about 
the prospect of going back to Iraq, I have thought that our 
effort--and in fact there is an effort by the Office of the 
Secretary of Defense, Paul Brinkley, Deputy Under Secretary for 
Business Transformation, to pursue this, to either reestablish 
or build sustainable, self-sustaining small businesses and 
industries in Iraq as being hugely important. Iraq does enjoy 
some enormous comparative advantages when it comes to the 
production of certain types of materials, among them asphalt, 
fertilizer, of course a variety of petroleum products and so 
forth, some agricultural products, and I think that we have to 
look very hard and fund those opportunities that are self-
sustained vice those that are just of a Works Progress 
Administration (WPA)-type nature.
    Senator Inhofe. On the WPA-type of deal, it was either you 
or General Chiarelli who told me about the fact that you had 
lines into Baghdad neighborhoods, but no grid to bring them in.
    General Petraeus. That is correct, yes, sir.
    Senator Inhofe. So they are climbing up with wire and 
electrocuting themselves trying to bring it in. This is the 
type of thing that can be done in my opinion immediately, and I 
would hope that you would tell us as we develop next year's 
legislation if you think we need to have more attention to that 
program, to CERP.
    General Petraeus. Sir, I certainly will, and I can assure 
the committee that I also intend to encourage the Iraqi 
government to use the substantial resources that it has. I have 
in fact also been in communication with the minister of 
finance, who is a former colleague there, through an 
interpreter, to encourage them very strongly to spend the oil 
revenues that they have. There are reports of as much as $10 to 
$12 billion that is available on the Iraqi side. I think it is 
very important that they use that and that they use it on the 
behalf of all Iraqis and not just in one area or another.
    Senator Inhofe. That is good.
    Senator McCain mentioned the experience in Bosnia. I can 
remember being up in Tuzla when they said that in terms of the 
ethnic violence that it would never be resolved, this was early 
on, and yet it was, as Senator McCain pointed out. So I think 
it showed in a very difficult area, that is a different 
culture--I understand that. But if it was resolved there, do 
you think it can ultimately be resolved in Iraq?
    General Petraeus. Sir, that is certainly my hope. I must 
tell you that in my first year, really throughout the first 
2\1/2\ years in Iraq, my sense was that this was a country in 
which the divides were actually less than those in Bosnia. Real 
ethnic hatred is what you find when you read Evo Andrich's 
book, ``The Bridge Over the Drina,'' and some of the 
unspeakable acts that were inflicted upon each other in the 
centuries of ethnic violence in the fault lines in the Balkans.
    There is great intermarriage in Iraq, particularly in 
Baghdad. Unfortunately, in the wake of the Samarra mosque 
bombing the ethnic divides have grown, and I think it is very 
important to secure the population, so that we can stop that 
kind of violence before it spirals farther and so that we do 
not have to do what happened in Bosnia, which is wait for the 
civil war to take place and then to come in.
    Senator Inhofe. That is an excellent answer.
    Senator McCain also talked about the morale, how is the 
morale. Your answer was fairly short, but I know from my 
experience over there that the morale is very good. Is this not 
reflected in the reenlistment numbers?
    General Petraeus. Sir, the reenlistment numbers continue to 
be very substantial, and particularly by those who are in units 
serving in theater. They continually way outpace the goals for 
reenlistment. I am really talking on the Army. I believe it is 
the same situation in the Marine Corps, and that is actually a 
real heartening, continuing heartening development.
    Senator Inhofe. It is. That is something I observed.
    With just 1 minute left, let me just mention, in The Early 
Bird this morning they mentioned four things attributed to your 
statements: inadequate planning for the liberation, failing to 
recognize the emerging insurgency, not having enough troops in 
certain areas, and holding elections in such a way that it was 
divisive instead of unifying. Are there any one of these four 
areas that you would like to elaborate on?
    General Petraeus. The fourth one is not correct, actually. 
If you look at the advance policy question, what I stated 
really was something that many other people have recognized and 
that was merely that the elections had to some degree the 
opposite effect of what we had hoped for, and that was that 
because of the voting along sectarian divides that they did not 
unify the country as much as we had hoped. It had nothing to do 
with the conduct of the elections. Frankly, I thought the 
conduct of the elections was admirable in each case and frankly 
quite heroic by the Iraqis who pulled that off.
    Senator Inhofe. Thank you very much, General. I look 
forward to working with you in this new capacity.
    General Petraeus. Thank you, Senator.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    Thank you, General Petraeus. Thank you for your willingness 
to serve. Your testimony this morning and your answers to our 
questions have been excellent. You have been candid and 
confident at the same time. You have been candid about the 
mistakes that have been made and about the challenges we face, 
but you have been confident about the way in which we can do 
better, and I appreciate that.
    I also appreciate the fact that you have been to Iraq, that 
you understand not only its history but its present. There is a 
temptation, a danger that people just following the news of the 
suicide bombings and sectarian death squads will assume that 
everybody in Iraq is involved in sectarian violence or 
terrorists or the insurgency. You know that is not true. You 
have testified that it is not, that most of the people of Iraq, 
the overwhelming majority, as you have said, quite naturally 
want to live a better and freer life, and the question is 
whether we can help their government help them do that.
    I want to ask you a series of questions which in some sense 
summarize what you have said, because I think it has been very 
compelling. General Petraeus, you have said this morning that 
serious mistakes have been made in the conduct of the war in 
Iraq since Saddam was overthrown in 2003. Is that right?
    General Petraeus. That is correct, sir. I did provide a 
description of those in the advance policy questions.
    Senator Lieberman. You have also said that you understand 
and appreciate the disappointment of the American people and 
their representatives here in Congress about the lack of 
progress in the war in Iraq today.
    General Petraeus. That is correct, sir.
    Senator Lieberman. You have also said that you fear that 
there would be disastrous consequences for Iraq, for the 
region, for the world economy, and for the United States in the 
war on terrorism if we exit Iraq prematurely.
    General Petraeus. Correct, sir.
    Senator Lieberman. You have said that you believe this new 
way ahead for Iraq that has been presented, with military, 
economic, and political components, is in fact a new and 
different strategy for Iraq than what has been tried thus far; 
is that correct?
    General Petraeus. I believe it is, yes, sir. There are 
cases in Iraq where this has actually been conducted in the 
past. Fallujah, which remains to this day since it was 
liberated and has become one of the better gated communities in 
that region, is an example of that. Tal Afar is another 
example, although again we have to continue to watch the hold 
and build piece on that.
    Senator Lieberman. Based on those examples that you have 
cited and your own expertise in counterinsurgency, am I correct 
to conclude that you believe that this new way ahead, this new 
plan for Iraq, can in fact work?
    General Petraeus. That is correct, sir.
    Senator Lieberman. When you say work, I mean diminish the 
violence being carried out by the enemies of stability and 
progress in Iraq, so that the Iraqis can achieve a political 
and economic solution themselves; is that correct?
    General Petraeus. That is correct, Senator.
    Senator Lieberman. You have said, General, in response to 
questions from Senator Levin, I believe, that you would agree 
to report regularly, perhaps by video conference, to Members of 
Congress about the progress or lack of said that you are 
seeing.
    General Petraeus. Yes, sir.
    Senator Lieberman. In fact, you have said that you would 
tell us quite directly whether we are succeeding or failing as 
your mission goes forward; is that correct?
    General Petraeus. Correct, sir.
    Senator Lieberman. You also said, in response to a question 
from Senator McCain, that adoption of a resolution of 
disapproval, which is contemplated by our colleagues and 
probably will be on the Senate floor, disapproval of the new 
way ahead in Iraq, would not, if I remember your words, have a 
beneficial effect on our troops in Iraq.
    But I want to ask you, what effect would Senate passage of 
a resolution of disapproval of this new way ahead that you 
embrace have on our enemies in Iraq?
    General Petraeus. Sir, as I stated in my opening statement, 
this is a test of wills at the end of the day, and in that 
regard, speaking purely as a military commander, if confirmed, 
albeit one who frankly does understand enormously and treasures 
the value of free and open debate, free speech, who has put 
himself in harm's way to protect those great features of our 
democracy, nonetheless, having said that, a commander in such 
an endeavor would obviously like the enemy to feel that there 
is no hope.
    Senator Lieberman. A Senate-passed resolution of 
disapproval for this new strategy in Iraq would give the enemy 
some encouragement, some clear expression that the American 
people were divided?
    General Petraeus. That is correct, sir.
    Senator Lieberman. Based on the answers that you have given 
and on your extraordinary record of service to our country and 
your expertise in counterinsurgency, that you have literally 
written the book, and your belief that this new way ahead is in 
fact different from what we are trying right now, with the 
exception of the few cities that you cited where it worked, and 
your testimony that passage of resolutions of disapproval would 
not have a beneficial effect on our troops and on the enemy, I 
want to make a plea to my colleagues in the Senate. I 
understand that the trains are on the legislative track and 
they are heading toward a collision. But I want to urge my 
colleagues to consider your testimony this morning and to put 
the brakes on.
    You will, in my opinion, receive unanimous or near-
unanimous support, and you should. You deserve it, from this 
committee and from the Senate. But I fear that a resolution of 
disapproval will send you over there with us saying you are a 
good and great general, but we do not agree with what you 
believe we need to do in Iraq.
    So I want to appeal to my colleagues to consider with 
regard to the resolutions of disapproval or the caps on troops 
or the cutoff of funds to step back for a moment and give you a 
chance and the 160,000 American soldiers you will be commanding 
a chance, perhaps a last chance, to succeed in Iraq. If, God 
forbid, you are unable to succeed, then there will be plenty of 
time for the resolutions of disapproval or the other 
alternatives that have been contemplated.
    General Petraeus, I think you are being sent into one of 
the most challenging and important circumstances that a general 
in our history has been sent into. I was thinking it may be 
comparable to when President Truman sent General Matthew 
Ridgway to Korea to replace General MacArthur when things were 
bleak, and General Ridgway succeeded.
    I pray that you will succeed similarly in Iraq. I believe 
you can and will succeed similarly in Iraq. I appeal to my 
colleagues today to give you this chance, again perhaps the 
last chance, to succeed and avoid the disaster that failure 
will bring.
    All of my colleagues here--and we have different opinions 
on this question--no one is embracing failure. No one is 
suggesting defeat. We have different ways that we believe we 
can do better. I believe you deserve the opportunity as the 
general we are going to send over to lead our effort, to carry 
out this way that you believe can and will succeed.
    Thank you, General.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Sessions is next. Thank you.
    [Audience interruption.]
    Chairman Levin. We would appreciate, madam, if you would 
please sit down. Thank you very much.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Thank you, General Petraeus, for your service, the years 
that you have spent away from your family serving your country, 
the efforts that you have expended in Iraq on two different 
tours. I visited you both when you were with the 101st in Mosul 
and commanding that unit also in Baghdad when you were training 
and working toward training those troops.
    I do not think there is anyone more experienced on the 
ground than you. Thank you for being willing to go back again 
at this critical juncture in our Nation's history.
    I would just like to thank Senator Lieberman for his 
comments. Senator Lieberman voted for this war, as over three-
fourths of our Senate did, and he has worked hard to help us be 
successful. We want you to be successful. I think the comment I 
would make to my colleagues is that if a resolution is not 
going to help you be successful, why do we need it? I would 
just make that comment at this point.
    General Petraeus, I would like to ask a few brief 
questions. A critical part of all of this for the American 
people is uncertainty about how things are going. I asked 
Secretary Gates and Chairman of the Joint Chiefs Pace if things 
got to the point where we could not be successful would they 
tell us so. You have indicated, I think, in your opening 
statement that you would. But I would like you to say that, so 
the American people would know that a person who knows that 
country, who has written a manual on counterinsurgency, if you 
believe it cannot be successful you will tell us so we can take 
a new action?
    General Petraeus. Sir, I firmly believe that I have an 
obligation to the great young men and women of our country that 
are putting themselves in harm's way and certainly to all 
Americans to tell my boss if I believe that the strategy cannot 
succeed at some point.
    Senator Sessions. You would not be going if you did not 
think there was a realistic opportunity to succeed; is that 
correct?
    General Petraeus. That is correct, sir.
    Senator Sessions. General Petraeus, you talked about 
walking the streets. You used that phrase. I know you used it 
when we were in Mosul and visited with you. Do you think it is 
important for a commander and will you take every effort to 
determine what is actually happening on the streets and how the 
Iraqi people are responding to the conditions there, and do you 
consider that a critical part of your leadership?
    General Petraeus. I do, sir.
    Senator Sessions. You have written the counterinsurgency 
manual and it requires a number of steps and coordinated 
efforts to occur, but is it not true that a number of things 
that are necessary for success are required to be done by 
agencies other than the Department of Defense?
    General Petraeus. It is, sir, and to perform them with a 
unity of effort.
    Senator Sessions. There is a courtesy by departments, that 
we do not want to be critical of one another and agencies do 
not do that. But I hope that you will not hesitate to insist 
that you obtain in a prompt timeframe the resources, the 
support, whether it be electricity or water or police or jails, 
that you will ask for even if it means other agencies may take 
it critically.
    General Petraeus. Absolutely, sir.
    Senator Sessions. I think we are in a critical time. I 
believe the Defense Department fully understands it because 
their soldiers are at risk every single day. It is a matter of 
life and death to them, and we have to raise the level of 
support I think from other agencies and departments of this 
government.
    Now, you have been there. I remember when you explained to 
us some difficulties, problems, errors that occurred. You 
talked about the de-Baathification program going so far as to 
have every professor at the Mosul University be terminated, 
causing an uproar at the whole university. You also talked 
about the need for more CERP money, that is the money that a 
commander could utilize immediately to fix a problem that is 
needed to be fixed, also gaining credibility for that 
commander.
    Do you think, now that you are going back to command this 
operation, that you can help eliminate those problems based on 
your experience, and will you have the support necessary to do 
so?
    General Petraeus. Sir, I will certainly do my very best. 
Just for accuracy's sake, Ambassador Bremer, in fact, gave me 
the authorization to perform a reconciliation process for Mosul 
University. There were actually about 120 professors that were 
affected in that case and we did, in fact, conduct a 
reconciliation process--no Baath Party members on the 
committee, judicial oversight, and so forth from the Iraqi 
side. Unfortunately, and contrary to what he wanted as well, 
because it was not just de-Baathification, it was also 
reconciliation that was planned, that was not able to be 
consummated when we delivered all the paperwork to Baghdad, it 
was never acted upon.
    Senator Sessions. You used that word ``reconciliation.'' 
You used it when we were introduced to the city council that 
had been established in Mosul of Kurds, Christians, Shias, and 
Sunnis, as I recall. Tell us, is reconciliation possible in 
Iraq?
    General Petraeus. Sir, it has to be possible for the goals 
to be achieved in Iraq as they are right now certainly, and we 
saw examples of that throughout time. We have also seen 
examples of the hardening of the ethnic differences and 
sectarian differences, certainly in the wake again of the 
Samarra bombing throughout the latter part of 2006.
    Senator Sessions. Senator Inhofe mentioned my concern over 
the prisons and lack of ability to detain persons that have 
been arrested there. There is an article in the January-
February Military Review that is consistent with the point I 
have been making for some months. It notes that added together, 
1 in 17 Iraqis are in jail. That is two to three times less 
than the percentage of people in jail in the United States. Yet 
the chances of a civilian being killed in Iraq are 20 times 
greater.
    It goes on to note that if you cannot identify the 
insurgent and you cannot imprison him when you do arrest him, 
you are not going to prevail. That is a military reality, not 
an economic or a political one.
    I feel strongly that this coordinating among agencies has 
not occurred sufficiently to get us a justice system that 
works. Do you share that concern, and if you need additional 
resources for prisons or courts, will you ask for that?
    General Petraeus. Sir, I will, and I do believe they are 
needed. I believe the rule of law has three pillars: police, 
judicial, and detentions. We have put a great deal of effort 
into the police. The results have not always been what we have 
wanted. We need to put considerably additional effort into the 
judicial side and into the detention side.
    As Senator Inhofe mentioned, I think the prison capacity in 
Iraq is one-sixth that of the State of Texas, and they are not 
fighting an insurgency.
    Senator Sessions. General Petraeus, thank you for your 
leadership. I believe we do have a realistic chance of success 
in Iraq. I believe changes in our policy were necessary to 
achieve that. I hope that you will utilize the leadership 
opportunity you have to insist that you get the support from 
the various agencies that are necessary to create a 
comprehensive and successful effort in Iraq.
    I would just say to my friend, the President of the United 
States, whose heart I know is broken by the losses we have 
suffered, but who believes in the justness of this cause, that 
more than he would like it will be necessary for him to focus 
on the other agencies and departments of this government to 
ensure that they respond immediately to the requirements that 
you have to be successful. I believe he will do that, but it is 
going to take more of his personal time than he would like, I 
am sure his advisers would like him to give. But bureaucracies 
are not easy to move and in war, speed and decisiveness are key 
ingredients, and we need that.
    Thank you.
    General Petraeus. Thank you, Senator.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Thank you, General Petraeus. In response to the questions 
that Senator Sessions raised about coordination and also in 
your own testimony, which is a plea for further support, it is 
your opinion that the Secretary of State and the Department of 
State have failed to adequately support military operations in 
Iraq?
    General Petraeus. Sir, it is my belief that the overall 
interagency effort needs to be substantially more robust than 
it is.
    Senator Reed. Do you have any indication it will?
    General Petraeus. Sir, that was part of the plan that was 
laid out by the President. I have talked with some of the 
individuals involved in establishing that. There is a doubling 
of the Province Reconstruction Team (PRT) members as one of 
those areas, and it is certainly something that I will pursue 
because, as I mentioned, governmental capacity-building in Iraq 
is hugely important to the comprehensive effort.
    Senator Reed. General, you served extensively in Iraq. We 
have all on this committee had the occasion to visit there. But 
we have heard repeated stories about building up the PRTs 
without any significant progress in that regard. This seems to 
me another one of these plans that never seem to get effected.
    I think I agree with you. I agree with Senator Sessions. 
The Department of Defense, military officers, enlisted men and 
women, have been carrying the burden here without adequate 
support, and I do not see anything in this plan really that 
will augment your efforts, which I think undercuts your ability 
to perform your mission.
    Let me go back to the heart of what you are engaged in. 
Under the counterinsurgency manual which you prepared and you 
have indicated, 120,000 troops is the doctrinal force size 
structure. There is about 85,000 troops total, you have 
indicated. Probably the 50,000 Iraqi forces, if there are 
10,000 reliable troops, that is more than I think we can 
reasonably expect. So I am guessing or speculating you have 
40,000 effective troops for a mission that requires 120,000.
    So it is your best military advice that this increment of 
20,000 American forces is adequate to do this job?
    General Petraeus. Senator, I believe again that the 
additional forces, these tens of thousands of contract security 
forces and ministerial security forces, actually do relieve us 
of substantial burdens that otherwise coalition or Iraqi forces 
would have to bear.
    Senator Reed. General, as I was out there I was shocked. 
Even Prime Minister Maliki told me that some of these 
ministerial forces are worse than the insurgents.
    General Petraeus. Some indeed, yes.
    Senator Reed. They are disreputable, they are involved with 
the sectarian killings. I do not know, but does Blackwater work 
for you now?
    General Petraeus. Blackwater does not work for me, although 
they are under contract certainly to a number of organizations. 
But as you have seen on your trips, for example, the U.S. 
embassy is guarded by contract guards. My personal security on 
my last tour was actually contracted out to I think it was a 
British security firm so that we could free up the military 
police to secure my own officers who did not have security 
provided for them.
    So again, that frees up our forces and it does that in 
numerous different places.
    Senator Reed. General, that situation has existed before 
this surge. I find it hard to believe that you would give as 
your best advice to this committee that the differential, 
probably 40,000 troops in terms of doctrine, is going to be 
made up by ministerial forces of Iraq that are generally 
unreliable and by private American contractors or other 
contractors. Is that the differential that is being made up?
    General Petraeus. Sir, again the additional U.S. forces 
will double the number of U.S. forces in Baghdad. The second, 
of course, is how they are used. Again, to secure the 
population those forces have to be in the population and that 
will be critical.
    Senator Reed. Let us talk about how they are used. First, 
as alluded to in other questioning, there is a real question of 
unity of command. You have a bifurcated command structure. It 
is the nature of this operation. You have a sovereign state. In 
any other counterinsurgencies, in Belfast, in Algeria, there 
was no lack of unity of command. It was essentially part of the 
country. So that is a problem.
    Also, I would like to ask about enablers. One of the 
problems in any military operation is not so often ground 
combat forces, it is translators, civil affairs officers, 
people with the cultural sensitivities you talked about so 
eloquently. Do you have adequate enablers to do this new 
mission?
    General Petraeus. Sir, that I do not know. Again, if 
confirmed, that is high on my list, to determine if we have not 
just those enablers, but also all the combat support and combat 
service support elements that you will recall from your own 
service are so critical to enabling the soldier who is on 
point.
    Senator Reed. We are presenting this strategy as a new 
forward with a new plan, and a key element as you indicate that 
you are not quite sure we have those forces in place or can 
generate those forces.
    General Petraeus. Sir, I have talked to General Odierno 
about this. Not to be presumptive, but in fact when people 
consulted me, in my current position, during the development of 
the strategy General Odierno assured me that they had been 
looking very hard at the enablers and that they think that they 
are going to be okay generally in the combat service support 
arena.
    But again, that is something I have to confirm for myself, 
if confirmed, and once I get on the ground.
    Senator Reed. Let me also ask, because this new tactical 
approach, this new strategic approach, has potential benefits, 
but it also has inherent difficulties. You will disperse 
American forces to small groups. You will have to supply those 
forces. The most significant attack against our forces are 
improvised explosive devices (IEDs) against convoys, which 
means you will be multiplying the convoys in Baghdad, exposing 
more of them to attack. Is that a fair estimate of the risks?
    General Petraeus. There is certainly risk. Obviously, as we 
disperse soldiers you always want to make sure that they are 
capable over anything that they could confront out there. But 
certainly there will be soldiers literally on the road. There 
will be soldiers on the streets and so forth.
    Senator Reed. The other issue, General, that has come up, I 
was out last fall. I talked to General Miegs, U.S. Army 
(Retired), and I talked to many other commanders on the ground, 
and they said in 6 months this situation will resolve itself 
one way or the other. Your timeframe for deployment takes you, 
as you indicate, to May when you will get your troops in 
country. You have a lot of work to do to prepare the battle 
space, to move the troops in.
    We seem to be pushing quite close to that 6-month window, 
for what it is worth, before you will actually start taking 
concerted effective action on the ground. Just in terms of 
timing, is that accurate?
    General Petraeus. Sir, again, I really need to get into the 
plan with Lieutenant General Odierno and to see how the forces 
will be employed. I think you have to wait until you have a 
certain critical mass of forces on the ground to take action so 
that you do not do the whack-a-mole and all we do is go into 
this neighborhood and then go into that neighborhood. So that 
you want to start with a certain degree of critical mass. I do 
not know that that degree is all five brigades having to be 
there and completely set before you begin operations.
    Senator Reed. In response to Senator McCain's question 
about what happens if we announce some type of withdrawal, you 
indicated that sectarian groups have been staking out turf. Are 
they doing that now?
    General Petraeus. In some cases they certainly are, yes, 
sir. Certainly along the fault lines in threatened 
neighborhoods that has been taking place.
    Senator Reed. That is likely to accelerate or decelerate, 
regardless of what we do?
    General Petraeus. Sir, I think if we secure the 
neighborhoods that that will decelerate.
    Senator Reed. But at this point it seems to you to be 
progressing rapidly?
    General Petraeus. No, sir, I am not so sure. Again, it is 
hard from this distance to get the real granularity of what is 
going on. There clearly is additional ethnic displacement, soft 
ethnic cleansing, whatever term you want to use. How prevalent 
that is is hard again for me at this distance.
    Senator Reed. You mentioned ethnic cleansing. That I think 
is happening and the description of whether it is deliberate, 
part of a plan, or just spontaneous is something you will, I 
presume, determine when you get out there on the ground.
    The other issue you raised is the involvement of other 
countries. There is a significant involvement of the regional 
countries there now, and one of the things that seems 
perplexing to me is that there are leading figures in this 
government that have close, long-time ties to Iran. I think 
that will continue regardless of what you are able to do on the 
ground, I presume.
    General Petraeus. It certainly presents challenges if in 
fact it manifests itself in resisting actions against those who 
are helping the enemies of the new Iraq, not just of the 
coalition forces but the enemies of the new Iraq, in Iraq. As 
you are well aware, there have been actions against Iranian 
elements in Iraq, and again that will be one of the challenges 
that we will have to come to grips with, and those ties clearly 
complicate matters.
    Senator Reed. One final point. One of the consequences of 
what you do, regardless of the ultimate level of success--and I 
wish you success because the lives of a lot of young Americans 
are in your hands and you know that, and you will perform I 
think magnificently taking care of those troops. But we could 
unwittingly be entrenching a government in Baghdad that has 
close and continuing ties with Iran. That is a distinct 
possibility.
    General Petraeus. Sir, I would have to do literally a 
leadership profile of that to make a reasonable assessment of 
that. My understanding is that Prime Minister Maliki certainly 
is under pressure in respects with that, but that he has also 
pushed back as well. So again, once I get on the ground, if 
confirmed, and can sort out these various dynamics and 
influences and how firm they are, then we can move forward.
    Senator Reed. Thank you.
    General Petraeus. Thank you, sir.
    Chairman Levin. Thank you, Senator Reed.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    General Petraeus, first let me echo the sentiments of 
everyone here, that I am so grateful that you have agreed to 
undertake this enormous challenge. I have great confidence in 
you personally and I hope that you succeed.
    General Petraeus. Thank you, Senator.
    Senator Collins. I have read a very interesting article 
that you wrote on counterinsurgency that was published a year 
ago in the Military Review. You offered 14 observations based 
on your previous tours of duty. As I look at those 
observations, observations that I think are insightful and that 
I agree with, I conclude that they are not consistent with the 
new strategy that we are about to embark on.
    Your first observation, you quote Lieutenant Colonel T.E. 
Lawrence, British Army (1888-1935)--also known as ``Lawrence of 
Arabia'' in August 1917 and you say: ``Do not try to do too 
much with your own hands.'' You talk about the need for the 
Iraqis to step up to the plate. I worry that the strategy that 
we are about to pursue in this country relieves pressure on the 
Iraqis to do what must be done and that we are making the 
mistake that you caution against.
    There is a big question here of what comes first. Do you 
need to provide the additional troops and the security in order 
to give Maliki and other Iraqi leaders the space to do the 
political moves that need to be undertaken, or in fact are you 
lessening the possibility they are going to do that? If Iraqi 
leaders had more fully integrated the Sunni minority into the 
government, if they had passed an oil distribution law that 
distributed the revenues more equitably, if they had amended 
the constitution, if they had held provincial elections, would 
we be where we are today?
    General Petraeus. We would not, Senator. What you described 
really has been truly an intellectual tension, frankly, about 
the mission in Iraq all along. You do have in the back of your 
mind always the wisdom of Lawrence of Arabia about not trying 
to do too much with your own hands. We used to say what we want 
to do is we want to help the Iraqis get up on their feet, we 
want to be near them, we want to back them up. But there are 
times when they start to wobble and the question is when do you 
move back in and provide assistance.
    In the wake of the bombing of the Samarra mosque and the 
violence that escalated throughout the latter part of 2006, I 
think we have arrived at a point where in fact we do need to 
help them a bit more in providing security in particular, with 
arm's linked, with them in forward, in front, wherever we can, 
for the Baghdad population in particular.
    Again, this of course is the fourth government in 3\1/2\ 
years and I think at times we probably have had expectations 
that were greater than they might have been, given the 
challenges. But I remember living through each of these 
transitions, and you would get a new government in and it 
seemed as if they were already facing an election for the next 
government or the next constitutional referendum or what have 
you. It has been very difficult for them.
    They do now have the permanent government, the elected 
government. It has only been in office for 8 months. It has 
been a very violent 8 months in a period of enormous pressure 
on the leadership of Iraq. They do now have, according to 
Deputy Prime Minister Barham Salih, the oil law nearing 
completion. There has been progress, incremental progress to be 
sure.
    So again, I think you very accurately captured truthfully 
the intellectual tension between the fear that our presence 
retards progress, holds it back, or that our presence can help. 
I do believe at this point that our presence can help and is 
needed.
    Senator Collins. Your second observation is that: ``A 
liberating force must act quickly because every army of 
liberation has a half-life beyond which it turns into an army 
of occupation.'' Again, this insight seems right on the money 
to me.
    When I was in Iraq with several of my colleagues last 
month, we had a very interesting presentation by one of the 
British commanders in Basra. He described a declining consent 
line. He said originally when the coalition forces arrived that 
they were welcomed, but over time their presence has become 
resented and less and less tolerated.
    You talk about this being a race against the clock, but I 
wonder if the clock has already run out, if we are already 
perceived by the vast majority of Iraqis not as liberators any 
more, but as occupiers.
    General Petraeus. That is another great question, Senator. 
First, I would start by saying that every area of Iraq is 
different and unique, and that in some areas, interestingly, 
areas where we came to be seen as an army of occupation, we 
might now once again be seen as an army of liberation because 
we help provide the degree of security that has been lacking in 
their lives.
    So I think it is important again to put your finger on the 
pulse of that neighborhood, of that muhallah, that district, 
that province, and then to act in accordance with that. The 
area in which the British are located, of course, is a much 
more cohesive area. It is a very predominantly Shia Iraqi area, 
and it is an area where, although there are certainly all kinds 
of internal differences and challenges, the Iraqis generally 
feel like they can get on without us over time, and that is why 
of course the British contingent has gradually been drawing 
down in Basra and the other southern, southeastern provinces.
    Senator Collins. But that is why the British commander's 
observations were so interesting to me. That is not an area 
where you have Sunni versus Shiite. It is a Shia area. Yet, 
despite that, we are seeing less and less tolerance for the 
presence of foreign forces, and that concerns me.
    General Petraeus. I think that is understandable, Senator, 
if I may, because if you think about again any country that has 
another army on its soil, again at some point tires of that. 
That is really the essence of what that lesson was. In truth, 
what it was really getting at is that when you get into one of 
these things you have to know exactly what your transition 
plans are. You have to have the stability and reconstruction 
organizations, resources, concepts, and principles already in 
your back pocket as you go downrange.
    Senator Collins. Finally, I have to comment on your answer 
to my very dear friend, Senator Lieberman, about the impact of 
the passage of a resolution and whether that would, I believe 
the words were, demonstrate to the enemy that the American 
people are divided. General, the American people are not 
divided in support of our troops. The American people are not 
divided in wishing you all the success in the world despite our 
disagreement with the strategy.
    I must say that the resolution that I have been working on 
with Senator Ben Nelson and Senator Warner is very clear in 
expressing support for our troops. I do not think it is going 
to come as any surprise to the enemy that the American people 
are in fact deeply divided over this strategy, but nothing 
divides us in our common support of the brave men and women who 
are fighting in Iraq, and nothing divides us in our common 
support, that we hope we are wrong and that this strategy is a 
success, and we wish you well as you undertake this very 
dangerous and difficult mission.
    General Petraeus. Thank you very much, Senator.
    If I could just add, I very much appreciate Congress' 
critical oversight responsibilities, I truly do, and I 
understand those very much as a student and as a one-time 
political science professor.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Collins.
    Senator Bill Nelson.
    Senator Bill Nelson. I think that point of view is very 
important, Senator Collins, to get across, because the way the 
questions were framed before would cast some doubt on those of 
us who would support Senator Warner's resolution. Certainly we 
hope and pray for success, but obviously the American people 
are divided about the conduct of this war. Is it any wonder? We 
were not told the truth about weapons of mass destruction, nor 
about troop strengths, nor about the cost of the war, nor about 
the sectarian violence. So is it any wonder that there is a 
huge division of opinion about the conduct of this war? That is 
the point that we are trying to get at here.
    Now, you are going to be confirmed. Your reputation 
obviously precedes you and we hope and pray for your leadership 
being a success. There is a lot at stake for this country. I 
appreciate what you shared with me in our private visit.
    I want to ask four questions for the record. When you come 
to testify before us again with the civilian leadership at your 
side, will you be silent if your civilian leaders provide false 
or misleading information?
    General Petraeus. No, sir.
    Senator Bill Nelson. Thank you for that.
    In 2004, you wrote an optimistic article about the progress 
of the Iraqi troop training. You praised their progress and how 
you were expecting their performance in the field. Well, those 
expectations were not fulfilled. For example, you cited in this 
article 100,000 Iraqi police and soldiers as trained and 
equipped, with tens of thousands more in the pipeline. It is 
2\1/2\ years later. How many Iraqi soldiers and police are 
trained and equipped today, General?
    General Petraeus. Sir, my understanding from the latest 
report of the Multinational Security Transition Commander-Iraq 
is that there are 325,000 or so that have completed the 
training, that met the requirement to be called trained, and 
have the basic equipment that we agreed upon as the metric to 
be called equipped.
    Senator Bill Nelson. Are they reliable?
    General Petraeus. They are not all reliable, sir. Again, 
and in fairness, if I could, in that article I also qualified 
it and pointed out the many challenges that were being faced in 
that mission as well. I tried to be quite realistic while also 
giving an accurate assessment again of those particular metrics 
which we subsequently developed into the more rigorous 
assessment, transitional readiness assessment and so forth.
    Senator Bill Nelson. Can you put a percentage on it that 
are reliable?
    General Petraeus. Sir, I cannot from this divide. I 
literally have only that particular report that was sent to me.
    Senator Bill Nelson. Let me tell you about a conversation I 
had with our Ambassador Khalilzad and General Casey. They both 
said--this was back before Christmas--that they would not 
support a surge unless there is a specific plan for success, 
and the ambassador even said, and I quote, that he did not want 
more American kids wasting their lives unless he had ``a high 
degree of confidence in the plan.''
    Do you have a high degree of confidence in this plan?
    General Petraeus. Sir, I believe this plan can succeed if 
in fact all of those enablers and all the rest of the 
assistance is in fact provided. As I have mentioned several 
times here today, I am determined to make sure that people know 
that we have that. Again, in my periodic updates to this body I 
will be happy to report whether that has been forthcoming or 
not.
    Senator Bill Nelson. Thank you for that.
    My last question is, earlier in your testimony you stated 
that morale of our troops is high, something to that effect. 
You may have said good.
    General Petraeus. I think ``good'' is actually the 
statement, yes, sir.
    Senator Bill Nelson. Okay. We had a surge earlier this past 
summer and I am quoting from a Washington Post story on July 
27. Army Staff Sergeant Jose Sistos said, ``Think of what you 
hate most about your job, then think of doing what you hate 
most for 5 straight hours every single day, sometimes twice a 
day, in 120 degree heat. Then ask how morale is.''
    Another member of that team, Specialist Tim Ivy, as quoted 
in the Washington Post said: ``Honestly, it just feels like we 
are driving around waiting to get blown up. That is the most 
honest answer that I could give you,'' said the specialist.
    General Petraeus. Sir, I remember that story.
    Senator Bill Nelson. How do you respond?
    General Petraeus. I would like to respond to that. First of 
all, there is nothing easy about wearing body armor and kevlar 
in harm's way in 125 degree temperatures. It is hard 
physically, it is hard mentally. It is a grind and it becomes a 
``Groundhog Day'' existence. In fact, there were some units 
that had groundhog coins that they handed out as unit coins to 
commemorate that type of existence.
    On the other hand, the reenlistment rates, particularly in 
theater, continue to remain so far above the requirements that 
clearly there is some sense among those soldiers that serving 
their country is something that they want to continue to do. 
They want to continue to serve in units with the individuals on 
their right and left that they have soldiered with.
    So again, nothing easy about it. By the way, the driving 
around waiting to get blown up is something that, certainly 
there is driving around in a population protection strategy. 
There has to be. But there needs to be a purpose to the 
presence of those soldiers in those neighborhoods and it is to 
secure those neighborhoods and that should be the objective, as 
opposed to perhaps living outside the neighborhood and entering 
it a couple of times a day with a vehicular patrol, in which 
case a soldier could feel that he is doing what that soldier 
told the reporter.
    Senator Bill Nelson. Godspeed, General.
    General Petraeus. Thank you, sir.
    Chairman Levin. Thank you very much, Senator Nelson.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    General, is it fair to say that one of the reasons that we 
have the highest rate of reenlistment among those who have 
served in Iraq is that they believe it is part of the global 
struggle, the war on terror?
    General Petraeus. Sir, I think again there are a lot of 
reasons why someone raises his or her hand again and again. I 
mentioned a couple of them, a sense that you are serving a 
cause that is larger than self, serving one's country. I 
personally have always felt that the reason that I stayed in 
and many others have stayed in is because we like the people we 
do what we do with. We feel privileged to be around those who 
have these same concepts of selfless service, the Army values 
that we embrace--the other services have the same--and that is 
in fact a hugely important reason.
    I would add certainly that the improvements that have been 
made in quality of life--you are never going to get rich 
wearing the uniform, but this body and our Congress and various 
administrations have over the years certainly made it so that 
at least it is a reasonable quality of life for our soldiers 
and for their families. We should never forget that we enlist 
the soldier, but it is the family that we often reenlist.
    Senator Graham. You are going back for the third time or 
the fourth time? Third time?
    General Petraeus. Sir, it is the third time to Iraq. It is 
the fourth year or longer deployment since 2001. The first one 
of those was in Bosnia from 2001 to 2002.
    Senator Graham. Do you believe that Iraq affects the 
overall war on terror or not?
    General Petraeus. I do, sir. Clearly there are elements of 
the greater al-Qaeda network of international extremists that 
want something very different than the Iraq that most Iraqis 
want and want something very different in that region and in 
the world.
    Senator Graham. Who bombed the Golden Mosque?
    General Petraeus. Sir, I believe that it was from this 
extremist group. It may again have been insurgent elements, but 
certainly those who obviously did not want the new Iraq to 
succeed and wanted to ignite sectarian violence. If I could 
add, I think that there is some of that going on right now. I 
think they see the increases in forces. I think they see 
perhaps the Iraqi government showing some toughness. I think 
that they want to derail that before it gets any momentum.
    Senator Graham. That was part of Zarqawi's hope before he 
was killed, to create a sectarian war; is that correct?
    General Petraeus. Sir, that is correct.
    Senator Graham. Now, when it comes to trying to evaluate 
what to do and why we are doing whatever course we chart, I 
just want to associate myself with Senator Lieberman. No matter 
how well-intentioned, a resolution being opposed to this new 
strategy is a vote of no confidence in you. No matter how well-
intentioned, the enemy will see it as a weakened resolve. No 
matter how well-intentioned, those people going to fight this 
war are going to say, well, I am going, but Congress says good 
luck but you are going to lose.
    I just hope we understand that. I think it is the global 
struggle, and if you think it is Vietnam, if you really believe 
we are in Vietnam, you should cut off funding. Not one other 
person should die in this cause. Not one American should lose a 
limb. No one should get hurt and we should come home tomorrow.
    General, is this Vietnam?
    General Petraeus. Sir, Vietnam was Vietnam. As a student of 
lessons of history and someone who did a dissertation that 
focused on those, every case is unique, and Iraq is Iraq. It 
has lots of problems. There are a few of them that are 
certainly related or similar to those in Vietnam. There are a 
lot that are very different. I truly think that we have to be 
sensitive to the uniqueness of each situation.
    Senator Graham. Let me ask you this. The consequences of 
losing in Vietnam compared to a failed state in Iraq, how would 
you compare the two in terms of our overall national security?
    General Petraeus. I think there is really no telling what 
could happen if Iraq fails. I explained some of the potential 
consequences of that, in a region that is hugely important to 
the rest of the world, on a fault line really between perhaps 
moderates and extremists, not just between different faiths 
within Islam and different ethnic groups, in a very volatile 
region.
    Senator Graham. Who is the biggest winner? Name some 
winners of a failed state in Iraq?
    General Petraeus. Certainly al Qaeda, the greater al Qaeda 
network, states that embrace extremist ideologies, those states 
who wish the United States and perhaps the western world ill.
    Senator Graham. Would Iran be a big winner if you had a 
failed state in Iraq?
    General Petraeus. Sir, it certainly could be. There are 
some who say that Iran could. I think perhaps they are torn, 
actually, because it could actually cause some real 
consequences for their own population.
    Senator Graham. Does Iran want a democracy in Iraq?
    General Petraeus. I do not believe they do. Certainly, if I 
could add to the previous one, I do not mean to imply that Iran 
has not been meddling in Iraq, nor that it has not been 
providing training, sophisticated improvised explosives and 
other devices that have created casualties and huge problems in 
Iraq.
    Senator Graham. I am going to make a statement and see if 
you agree with it: One of the biggest nightmares of the 
dictatorship in Syria and the theocracy in Iran is to have a 
functioning democracy in Iraq. It threatens their regimes.
    General Petraeus. I think that is true, sir. It would 
obviously depend on what that----
    Senator Graham. Do you believe it is remotely possible to 
have a democracy with this level of violence in Iraq?
    General Petraeus. I think it is very challenging, sir.
    Senator Graham. Some resolutions say that we go to Anbar 
but we leave Baghdad alone, that we do not put any troops in 
Baghdad. On my last trip to Iraq we met with a citizens group 
made up of Sunnis, Shias, I think a Kurdish person was there--I 
cannot remember--but they were all Baghdad residents. The one 
thing they told every member of our delegation is, if you leave 
there will be a bloodbath in Baghdad. Do you agree with that?
    General Petraeus. I do, sir.
    Senator Graham. So if there is a bloodbath in Baghdad, are 
we going to sit on the sidelines and watch it happen? Is that 
in our national interest?
    General Petraeus. Sir, that is not our strategy at this 
time.
    Senator Graham. Can you have a functioning democracy where 
the capital itself is not secure?
    General Petraeus. No, sir.
    Senator Graham. General, when it comes time to do what you 
are going to be required to do, one of those things you are 
going to have to do unfortunately is tell some loved ones that 
their family member was killed as part of this surge. What are 
you going to tell them?
    General Petraeus. Sir, I am going to tell them that they 
served their country admirably in a mission that I believe is 
honorable. I have had to do this before, obviously, and it is 
the toughest duty of any leader.
    Senator Graham. IEDs, that is the biggest threat to our 
troops. 70 percent of our casualties are from IEDs, is that 
correct?
    General Petraeus. I believe that is correct, yes, sir.
    Senator Graham. Let me if I can very quickly explain how 
the new surge may affect that. One group of people involved in 
the IEDs are people without a job and they do it for the money; 
is that correct?
    General Petraeus. That is correct, sir.
    Senator Graham. So if you could improve the economy and 
have jobs available to people other than being in the IED 
business, hopefully that over time would help. That is part of 
the surge, right, create a better economy?
    General Petraeus. That is correct, and it also could reduce 
the militias.
    Senator Graham. Second, there is another component to this. 
If the person down the street who was caught putting an IED in 
the ground to kill Iraqi troops and American troops, if they 
went to jail for 30 years or got executed that might deter 
IEDs; is that correct?
    General Petraeus. Correct.
    Senator Graham. That is part of the surge.
    Would you consider suggesting to your Iraqi counterparts to 
create a military tribunal to handle these type crimes?
    General Petraeus. I would, sir.
    Senator Graham. Finally, an increased double capacity, a 
military surge doubling the combat capability to hold areas 
cleared, the hope would be to put pressure on the IED makers 
militarily, economically, and under the rule of law, to go 
after them, so you are not driving around waiting to get blown 
up.
    When we go, are the gloves off? Are we going to go wherever 
we need to go and get wherever we need to get to fight and win 
this war?
    General Petraeus. Absolutely, sir.
    Senator Graham. Thank you.
    Chairman Levin. Thank you, Senator Graham.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    Thank you very much for your lifetime of service and taking 
on this very difficult assignment. I want to begin by 
associating my remarks with those of Senator Collins. We are in 
a dire situation, using your adjective, in part because 
Congress was supine under the Republican majority, failing to 
conduct oversight and demanding accountability, and because the 
President and his team, particularly the former Secretary of 
Defense, refused to adapt to the changing circumstances on the 
ground.
    If this hearing were being held 3 years ago, I would have a 
much higher degree of optimism. It has nothing to do with the 
loyalty, the warrior skills, and the leadership of our men and 
women in uniform. It has everything to do with the years of 
lost opportunities and the failures of the Iraqis to step up 
and take responsibility for their own future.
    It appears also, General, that the strategy that is being 
put forward inspires skepticism for good reason. Your manual, 
the Army-Marine Corps Counterinsurgency Manual, as we have 
already discussed, not only suggests a minimum force level of 
approximately 120,000, but the manual places great importance 
on building up internal institutions and training to provide 
security.
    This escalation, despite the rhetoric about other goals, 
places primary emphasis on American military involvement, not 
Iraqi institutions. The manual makes clear the interconnections 
of political and military progress, that one cannot be achieved 
without the other.
    I have been quite gratified to hear all the positive 
references to Bosnia in this hearing. I can remember very well 
in 2001 and 2002 hearing nothing but derision about nation-
building and about peacekeeping and about sufficient levels of 
force going in to back up whatever the political objectives 
might be.
    You will take on a difficult role in Iraq at a time of 
peril, based on your leadership and expertise. But what those 
of us who are issuing resolutions and statements of disapproval 
fear is that you are being sent to administer a policy that 
frankly does not reflect your experience or advice or the 
experience and advice of our most recent example in dealing 
with ethnic violence, namely Bosnia.
    You wrote the book, General, but the policy is not by the 
book. You are being asked to square the circle, to find a 
military solution to a political crisis. I among others on this 
committee have put forward ideas about disapproving the 
escalation, not because we in any way embrace failure or 
defeat, but because we are trying to get the attention of our 
government and the Government of Iraq.
    On my recent trip to Iraq along with Senator Bayh, our 
interaction with the Prime Minister and his team did not 
inspire confidence. What I, speaking for myself, am attempting 
to do is to send a very clear message to the Iraqi government 
that they cannot rely on the blood and treasure of America any 
longer, that we are not going to go into Baghdad and embed our 
young men and women in very dangerous neighborhoods where we 
cannot possibly provide force protection because they will not 
step up and do what everyone knows they must do for themselves.
    I very sincerely but wholeheartedly disagree with those who 
are trying to once again up the rhetoric about our position in 
Iraq instead of taking a hard look about what will actually on 
the ground change the behavior and actions of this Iraqi 
government.
    In the absence of the kind of political full-court press 
that we put on in Bosnia--when I landed in Tuzla, I was briefed 
by Russians, French, Germans, and Americans. We had an 
international force, an international commitment. We had 
brought people to the point where they understood that success 
there was essential to their national security. I see nothing 
coming from this administration that it is willing to pursue 
such a policy now. They will not talk to bad people and it is 
bad people you talk to in order to try to further political 
goals, not your friends. They will not put the kind of pressure 
on a consistent basis on the government that is required in 
order to change their behavior.
    I have said that I would never cut money for our troops 
when they are in harm's way, but I sure would threaten to cut 
money for the Iraqi troops and for the security for the Iraqi 
leadership. I do not know how else to get their attention.
    But one thing I am particularly concerned about is the 
failure of security for our troops. The incident in Kharbala 
over the weekend is scary. It raises questions that we do not 
have answers to.
    So let me, beyond my statement of joining in the comments 
with Senator Collins and rejecting those of our other friends 
on the panel who think that statements of disapproval are 
somehow going to undermine our effort when I think they will 
send the clearest message--we know this policy is going 
forward. We know the troops are moving. We know that we are not 
likely to stop this escalation. But we are going to do 
everything we can to send a message to our government and the 
Iraqi government that they had better change, because the enemy 
we are confronting is adaptable, it is intelligent, it learns. 
It got a hold of our military uniforms, went through those 
gates after having cleared all those police checkpoints, killed 
five of our soldiers in a meeting talking about security in 
Iraq.
    I do not believe that we are playing with a team on the 
other side that understands the stakes as we described them. So 
one thing I would ask, General, is please do everything you can 
to get additional security. The Humvees are turning into 
deathtraps, as we see the sophistication of the IEDs. We do not 
have enough of the mine protection vehicles, we have not even 
ordered enough, and we have not put them into the theater.
    If we are going to put these soldiers and marines into 
these very exposed positions, which this strategy calls for, 
please come to us, ask for whatever you need to try to provide 
maximum protection. I disapprove of the policy. I think it is a 
dead end. It continues the blank check. But if we are going to 
do it, then let us make sure we have every possible piece of 
equipment and resource necessary to protect these young men and 
women that we are asking to go out and put this policy forward, 
when we are not doing the political side of the equation that 
is necessary to maximize the chance for their safety and 
success.
    General Petraeus. I will do that, Senator.
    Chairman Levin. Thank you, Senator Clinton.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    General, you obviously have a great challenge in front of 
you. Having visited with you on the ground in Iraq on a couple 
of different occasions, watching you in action as you train the 
Iraqi troops and the Iraqi security police, I have all the 
confidence in the world that you are the right general at the 
right time to be going on this mission. Had you personally 
attracted the attention of the enemy and had this change in 
direction not attracted the attention of the enemy, I do not 
think we would have seen the statements coming out of al Qaeda 
that we have seen in the last couple of days. So I think the 
challenge is there, but, as I say, I am very confident that you 
are going to be up to it.
    One comment I have made about this change in strategy from 
day 1 is that my support of the change would be only if the 
additional troops had a specific mission and at the time that 
mission is completed that those troops are redeployed. Now, I 
asked that question to Secretary Gates and General Pace a 
couple of weeks ago, if that is in fact the mission. Is it your 
understanding that those are the directions which you have 
relative to the increase in the troops?
    General Petraeus. Sir, in my discussion with the Secretary 
of Defense yesterday he made it very clear that I should ask 
for what we need to accomplish any mission that is given to us, 
and of course you want to redeploy forces when they are no 
longer needed for a mission. That is about as good as I can 
answer that particular question.
    Senator Chambliss. This plan that is described as a change 
in strategy actually was in part developed by the Iraqi 
leadership, is that not correct?
    General Petraeus. Sir, I have not been in on the planning 
in Baghdad and I am not in a position to comment on that. I 
have talked to General Odierno about aspects of the plan, but I 
did not ask him specifically the level of Iraqi involvement in 
it. I do know that the Iraqi headquarters for the Baghdad 
security operation is relatively new. The commander, as I think 
you know, was just appointed a few weeks ago. So I am not sure 
how much specific input that particular headquarters has had in 
this plan to date.
    But again, obviously once I get on the ground, if 
confirmed, that is something I would have to dig into.
    Senator Chambliss. I say that because Secretary Gates 
responded affirmatively to that question the other day. The 
reason I start with that is that I have some real concerns 
about the leadership in Iraq and their capability of carrying 
out their plans. While I disagree with my distinguished 
colleague from New York that this is going to require purely a 
political resolution, you are not a political person; you are a 
military person, and it is going to require a political 
resolution and a military resolution. Otherwise we do not need 
to send you over there.
    I think we have to have confidence that the Iraqi 
leadership politically as well as militarily is going to be 
able to do what they say they are going to be able to do.
    Now, I want to ask you two questions about that. First of 
all, knowing what you know about the political leadership in 
Iraq, do you have confidence that they are willing to make the 
commitment that they have said they are going to make to make 
sure that we can accomplish this mission that you have been 
given?
    Second, you have been on the ground training Iraqi troops. 
You have been living amongst them, so to speak, for two 
different 12-month deployments. Do you have confidence that the 
Iraqi military can step up and do finally what we have been 
anticipating and hoping that they would do for the entire 
period of time that we have been inside of Iraq?
    General Petraeus. Sir, in response to those questions, 
having not been in Iraq for some 16 months, and although I do 
know and have worked with a number of the Iraqi leaders in this 
government, I do not know Prime Minister Maliki personally, and 
I will have to determine for myself. We will obviously have to 
have a number of close meetings and develop a relationship.
    That support from the Iraqi government is absolutely 
critical. As you mentioned, military force is necessary but not 
sufficient. The sufficient piece is the additional political 
component, and again that is something that I will have to 
determine the presence of as I get on the ground.
    The same, frankly, with the Iraqi security forces. Again, 
having been out of Iraq for 16 months, one of the tasks I will 
have to undertake is in fact to assess their state at this 
point in time. The fact is that they have received reasonable 
training and they have received reasonable equipping. Both of 
those can always be improved and the equipment does need to get 
more robust over time, although they have received thousands of 
up-armored Humvees to my understanding, as an example.
    But what I will have to do again is to determine the will 
component of this. Military forces, to be effective have skill 
and will, and what we will have to determine is the presence of 
both. But the will component will be the most important.
    Senator Chambliss. One issue that I have had relative to 
this ongoing conflict is the fact that I have been disappointed 
that from an intelligence-gathering standpoint we have not in 
my opinion achieved the results that we should have been 
achieving at this point in time. I am pleased to see that you 
have already been down to Fort Gordon in the last few days to 
see what we are doing there relative to supporting the war in 
Iraq, and we are doing some great things.
    But in comparing the level of intelligence that the 101st 
Airborne Division received in Mosul during your tenure as 
commander versus the level of intelligence that Task Force 
Olympia received after you departed, you noted that the lack of 
intelligence Task Force Olympia received played a significant 
role in the decreasing security situation in Mosul. I would 
appreciate your elaborating on why intelligence decreased under 
Task Force Olympia, what lessons MNF-I learned in this 
situation, and how these lessons are being incorporated in the 
current operations and intelligence activities.
    General Petraeus. Sir, the 101st Airborne Division had its 
habitual division military intelligence battalion at that time, 
which is a very robust structure. We were fortunate to have 
partners from all of the intelligence agencies in our 
government and to have special mission unit elements working 
with us as well.
    We were also fortunate to have a number of individuals who 
had served in Bosnia, where we created a joint interagency task 
force for counterterrorism, and that is really what you are 
doing when you are conducting targeted operations in a 
counterinsurgency environment. Putting all of that together 
when the insurgents did make a push in the area, and once we 
were able to get a grip on that push, our analysts were able to 
provide actionable intelligence that was very good. In one 
night alone, for example, simultaneously we took down 35 
different sites at 2 o'clock in the morning in Mosul. Another 
time, we did 25 sites simultaneously, just in that one city, 
and in many cases there were others outside the city that we 
did simultaneously as well.
    The night we did the 35, we got 23 of the individuals that 
we were after, with one shot fired. Most of those were knocks 
on the door rather than blowing the door down. That was the 
level of the refinement of both the process and the resourcing 
that we had at that time.
    Task Force Olympia was not an existing organization. It was 
taken out of the I Corps headquarters at Fort Lewis, 
Washington, the tactical command post of that corps 
headquarters, and they did not have the normal robust military 
intelligence battalion that we had supporting them. We did 
anticipate problems with this, frankly, and did raise concerns 
about that. It took months for those to materialize, but in the 
wake of the assassination of the governor some 5 or 6 months 
after we left in a very fractious political process that 
resulted in Sunni Arabs, many of them, walking away from the 
province council table, the insurgents were able to start 
putting roots down again.
    As that happened, the intelligence elements of Task Force 
Olympia were not able to generate the same amount of actionable 
intelligence. You then enter into a spiral where, because there 
is more insurgent presence, there is greater intimidation of 
local security forces and your intelligence agents, your human 
intelligence agents, which means less intelligence, which means 
less effective raids, which means more bad guys, and you can 
see it spirals downward until in fact it did implode in 
November during the operation in Fallujah the enemy opened up a 
new front up in Mosul, building on the infrastructure that they 
had been able to establish there and also building on the fact 
that they had been able over time to intimidate very severely 
the police in Mosul in particular and their leadership.
    That is really what I was getting at with that particular 
case. So it was both a substantially reduced amount of the 
intelligence analysis capability that was so important when we 
were conducting our operations and to some degree there was 
less of the joint interagency task force capability as well 
because that headquarters was not as robust as a division 
headquarters either.
    I did feel at the time that they took over that they could 
maintain the security situation because of actually tens of 
thousands of Iraqi forces that were trained during our time. In 
fact, these forces did prove themselves in April 2004 when the 
rest of the country really experienced very substantial 
difficulties. But over time, as that spiral began, particularly 
in the late summer of 2004, it became increasingly difficult to 
keep pulling the roots out as fast as the bad guys were putting 
the roots down.
    Senator Chambliss. Thank you, General. As you accept this 
challenge, obviously our best wishes go to you for a huge 
success. Thank you.
    General Petraeus. Thank you, Senator.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    General Petraeus, I want to say on the front end that I 
support your nomination very enthusiastically.
    General Petraeus. Thank you, sir.
    Senator Pryor. I think you are the right person for this. I 
have concerns, as we have discussed previously, about the surge 
or the augmentation, whatever you want to call it. Basically, I 
have three basic concerns. We have talked about these before, 
but first is the practicalities, and that is where you get into 
the thousand questions about where do our troops come from, how 
does it impact the National Guard component, and training and 
equipment. There is literally a thousand questions there that I 
have concerns about.
    Second is, I am concerned that our best U.S. military minds 
are divided on this surge strategy. Again, I am basing that on 
press reports and just reading a lot of retired people mostly 
and their thoughts and their impressions of what the best next 
step is.
    The third concern I have is I am very concerned that there 
is insufficient Iraqi buy-in. My sense is that this is not 
worth doing unless the Iraqis buy into this strategy because I 
think fundamentally that is what we are talking about here, is 
the Iraqi government, the leadership, military police, et 
cetera. They have to take over and take responsibility for 
their country, and we need to over time give that 
responsibility to them. I think most Americans would like us to 
do that sooner rather than later.
    You have mentioned in some of your comments and just what 
you have said in the past several days that your perception is 
basically there is now a changed mission in Iraq. Is that fair?
    General Petraeus. It certainly is, a change in mission 
where the focus will be on the security of the population as 
the foremost objective and transition is not foremost. Really, 
throughout much of 2006 transition has of course been foremost 
and frankly, I thought for a very long time myself that that 
was the right approach to take as well. It was in the wake of 
the violence, of course, of the fall of this last year and the 
winter that has proven to be undermined as the way ahead.
    Senator Pryor. Let me follow up on one of Senator Kennedy's 
questions a few moments ago when he asked about benchmarks. You 
said you had a set of general benchmarks in your mind, but it 
would take time to develop more specific and more particular 
benchmarks. I think that is a fair understanding of what you 
said.
    My follow-up question on that is, it seems to me that the 
circumstances in Iraq have changed considerably over the last 
year, and as you are coming up with your set of firm benchmarks 
that we can measure success or failure using your benchmarks, 
what happens if the circumstances are continually changing and 
how much time do you need to get to the benchmarks so we can 
measure how successful we are being there?
    General Petraeus. Senator, some of the benchmarks I think 
perhaps will exist on my arrival, if confirmed. Among those 
might be schedules of Iraqi troop deployments and the like. 
Some of those I think are fairly straightforward. I think it is 
more difficult when you get into some of the very difficult 
issues that the Iraqi government will have to come to grips 
with in determining what is the level of process toward 
decisions on some of these very challenging issues that 
obviously have to be resolved for Iraq to move forward in the 
direction that everyone hopes it will move.
    Senator Pryor. That is one reason I have confidence in you, 
because I know that you are very focused on that and you are 
going to do your dead level best to make sure that you have a 
handle on the progress we are making, if we are making 
progress, and where we are not, trying to take steps to fix 
that.
    In the manual that has been talked about today, the 
counterinsurgency manual, in fact the Arkansas Democrat-Gazette 
editorial page quoted a section of that today or several 
sections, and it said that: ``Victory is achieved when the 
populace consents to the government's legitimacy and stops 
actively and passively supporting the insurgency.'' I think 
clearly that is a good definition of victory.
    But what I would ask you to do, this is about keeping 
Congress more informed than in years past. If you can help us 
measure how we are moving toward victory, if you can give us 
objective criteria that we can look at where we can measure if 
we are actually progressing the way we want to progress.
    So whatever those metrics are, whatever those statistics 
are, you are going to have to help us do that, because one of 
the frustrations I think I have had is that it has been very 
difficult for me to gauge whether we are moving forward or 
whether we are losing ground in Iraq.
    Also in your counterinsurgency manual, you give an equation 
there that says there should be one counterinsurgent for every 
50 inhabitants. I am wondering about the numbers in Baghdad. I 
believe Baghdad is about 6 million. Are we at that number, that 
1 to 50 ratio? Are we there? Will we be there with the surge?
    General Petraeus. Senator, we will. If you lump together 
all of the existing U.S. forces and forces to deploy, existing 
Iraqi forces and forces to deploy, you get to about 85,000. 
Certainly not all those are equal. Some are much better than 
others.
    You then should add in tens of thousands of additional 
forces that are over there that provide, of all things, 
contract security for our embassy. Myself, I was secured by 
contract security in my last tour there, and that frees up 
uniformed forces to perform other missions and those have to be 
factored in as well. The same with the ministerial security 
forces, acknowledging certainly that some of those ministerial 
security forces are part of the problem instead of part of the 
solution. But they do in fact secure, again, facilities and 
infrastructure that would otherwise have to be secured by U.S. 
or Iraqi forces.
    Senator Pryor. Just for the sake of clarity, when you talk 
about a counterinsurgent are you talking about anybody that is 
on our side? I mean, it could be the Iraqi police, obviously 
the Iraqi army, obviously other Iraqi security forces?
    General Petraeus. That is correct, Senator.
    Senator Pryor. But it could also be contractors?
    General Petraeus. If they are performing security 
functions, yes, sir.
    Senator Pryor. So it is whoever it may be, just as long as 
they are performing security functions?
    General Petraeus. Yes, sir. Again, if you will, that is 
sort of a modern evolution of counterinsurgency strategy, if 
you will, because certainly in Malaya and other places there 
were not contract security elements in those days, although 
they certainly counted their governmental security elements 
like the ministerial security forces.
    Senator Pryor. What happens if you get in there and the 
Iraqi forces, whether they be a police unit or a brigade, 
whatever size it may be, what if they just fail to meet the 
obligations that they have? What if they either just do not 
show up or they just do not perform well? My suspicion is you 
will find them performing unevenly from area to area.
    General Petraeus. Yes, sir.
    Senator Pryor. What do you do when they do not meet the 
standard?
    General Petraeus. There will be some of that, there is no 
question. In those cases we will have to go to their bosses and 
demand corrective action. That is easier said than done. But it 
is something that we will have to do.
    In my last tour in Iraq, on one occasion I went to the 
minister of interior and told him that we had withdrawn all 
logistical, funding, and equipment support for a particular 
element in the Baghdad police force and that would remain 
withdrawn until certain individuals who we caught mistreating 
detainees were apprehended and dealt with, and those 
individuals were apprehended and dealt with.
    Senator Pryor. I just had one follow-up question to what 
Senator Bill Nelson asked a few moments ago. I think his 
question--I wrote it down; I think I have it right--Will you be 
silent if your civilian leaders provide false or misleading 
information? I think that is what he said, and you said, no, 
you would not remain silent, which is the right answer.
    But if you find yourself in that situation where you have 
civilian leadership in this country that is not providing 
accurate and true information, what will you do?
    General Petraeus. Sir, I will provide accurate and true 
information. I think the committee ought to know that. I would 
be very happy to stay on the banks of the Missouri River at 
Fort Leavenworth, Kansas, instead of going back to the banks of 
the Euphrates River, and I am doing this out of a sense of 
service, again to those great young men and women who are over 
there, and because this is what the military does.
    But this is not about being beholden to anyone. This is not 
about, again, being aligned with any party or anyone else. I 
will give you my best professional military advice, and if 
people do not like it, then they can find someone else to give 
better professional military advice.
    Senator Pryor. I think that is why you are the right guy 
for the job.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Pryor.
    Before we call on Senator Thune, let me just follow up on 
something that Senator Pryor said and give the Defense 
Department notice of a request that we are going to insist be 
complied with. It has to do with the benchmarks issue or the 
measurements which Senator Pryor made reference to. Back in 
November when the question of benchmarks came up, we asked both 
Secretaries of Defense and State, for copies of the benchmarks 
that were referred to by the President. The President has said 
specifically that we will hold the Iraqi government to the 
benchmarks it has announced.
    We asked again. When we did not get those benchmarks, we 
asked the Secretary of Defense. We got a letter back from the 
Secretary of Defense on December 4th saying that the request 
for the benchmarks would be referred to the State Department. 
We have written the State Department again, Secretary Rice, 
saying we want the benchmarks. This was a January 16th letter.
    Now, we are determined that we are going to get the 
benchmarks which the President says that the Iraqi government 
has announced it will follow. We are determined we are going to 
get those. I do not want to hold up your nomination. Nobody 
does. We are going to speed your nomination as quickly as we 
can because we think that it should be speeded up, for all the 
reasons you have heard here today.
    But there must be representatives here of the Defense 
Department and the State Department. Whether there are or not, 
we are going to make it clear that we are going to find a way 
to get copies of those benchmarks that you say you saw on 
slides. Now, I made reference in the letters just to political 
benchmarks, but we are going to insist--and I use the word 
``insist'' and I think this will be a bipartisan insistence; 
this is not a partisan issue. This is information this 
committee is entitled to, that Congress is entitled to. I am 
looking at you, but I am talking to the people at the Defense 
Department and the State Department who are within earshot 
here.
    We are going to insist that we get copies of the benchmarks 
on the political, economic, and military aspects that have been 
agreed to by the Iraqi government, which the President has said 
he is going to insist that they comply with.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    General, thank you for being here today. Thank you for your 
extraordinary service to our country and for your willingness 
to undertake a very challenging and difficult task.
    I want to follow up. You answered in response to a question 
Senator McCain asked earlier today about what would happen if 
the United States were to leave Iraq now or follow the advice 
of some up here and that is to begin withdrawing. You mentioned 
some of the things, ethnic cleansing, other countries 
interferring, terrorist groups moving in, disruptions in the 
flow of oil, a whole lot of consequences of that step or that 
action.
    What I would like to have you do if you could is expand a 
little bit on that answer in terms of what it would mean to the 
United States and to our security interests, because I think 
too often people here in this country do not understand or make 
the connection between what is happening over there and what 
that means to national security here at home for the United 
States. Could you just expand on that answer a little bit and 
what the implications could be for people here at home and why 
this fight is so important, not just to that region but to U.S. 
interests?
    General Petraeus. Sir, there is a number of broad 
categories, if you will, that I think deserve mention. One of 
those certainly is the potential--and all of these are 
potentials. As I said in my opening statement, no one really 
knows the consequences of a failed Iraqi state. But certainly 
regional instability could be a result of that if surrounding 
countries felt that they had to enter Iraq for some reason or 
other to safeguard one ethnic group or another.
    Were some portion of Iraq to become truly a terrorist 
training camp, and the potential certainly exists for that in 
places like Anbar Province and other areas that are under more 
of the insurgent control, obviously that is a much shorter trip 
to countries of friends in that region, to other western 
countries, and to the United States than from other possible 
camps, say in the Afghan-Pakistan border regions or something 
like that.
    I think you do have to consider U.S. standing in the world, 
if you will. I think that is an important factor. I think, as 
you mentioned the international economy, one does not know if 
the oil flow would be disrupted, but certainly were that to 
happen, were there again to be regional instability that 
erupted, again there is the potential that that could erupt--
that could degrade the availability of the energy resources in 
that area, the oil and natural gas.
    Again, no one really knows what these consequences truly 
would be. They are all potential, and they all are certainly 
worrisome.
    Senator Thune. Let me ask you, if I could, a follow-up 
question that has been posed a couple of times this morning, I 
think first by Senator Lieberman and a couple of others on the 
panel. It has to do with these resolutions that get put on the 
Senate floor, that I think in many cases are designed to 
respond to political conditions here at home rather than to 
conditions on the ground in Iraq. If thought were being given 
to the effect on the troops and the conditions on the ground in 
Iraq, I do not think you would probably see as many of these 
resolutions floating around here on Capitol Hill, and I know 
that they do not have the force of law when you are talking 
about a non-binding resolution. I think the real opportunity 
here for Congress to have a say in this, if they wanted to, 
would be with respect to the purse and the power that we have 
in terms of appropriations. At least nobody evidently wants to 
take that step.
    But these resolutions are symbolic, in that I think they 
send a signal and a message to our troops. They obviously are 
perceived around the world as having some meaning. I do not 
happen to believe that our troops make the distinction between 
support for them and a lack of support for their mission. Would 
you comment on that as well, just as a follow-up to the 
questions that have been asked earlier?
    General Petraeus. Sir, again, I am not a politician. I am a 
guy who wears a uniform and has for 32 years plus. I am, 
however, very sensitive, as I mentioned before, to Congress' 
responsibilities in terms of oversight, accountability, and so 
forth. I understand also very much the frustration of the 
American people, of Congress, frankly of all of us, with the 
situation in Iraq.
    I think, however, putting on the uniform and as a 
prospective commander, if confirmed, that the question has to 
be, I guess at least that I would ask myself, what message will 
the enemy take from this, what message will the soldiers and I 
take from it?
    If I could, I would just really like to leave it at that, 
because, candidly, there are a number of resolutions out there, 
without actually getting into details, which I would just as 
soon avoid anyway, frankly, learning that mine fields are best 
avoided and gone around rather than walked through on some 
occasions. I would like to leave that one there, Senator.
    Senator Thune. A very diplomatic answer. But I come back to 
that point because I think that the questions that have been 
asked earlier--what is most important in the debate that is 
occurring up here right now, in my view at least, is the impact 
that it has on the men and women who are wearing the uniform. 
You are a career military officer, someone who works day in and 
day out with the troops. Those of us who are up here obviously 
have constituencies back home that we respond to and clearly 
many of these messages or resolutions are directed or targeted 
at some of those constituencies, who have a sense of 
frustration about this war.
    But it seems to me that the bottom line concern that we 
have to have is that our troops understand that we are 
committed to them and support them and want to make sure that 
they have every opportunity to be victorious, to complete the 
mission. That is what soldiers do. I am very concerned about 
the mixed messages that are sent by statements that are made 
here, not so much again as they are directed to constituencies 
back in the States, but more importantly what impact that has 
on the men and women who are carrying out this responsibility 
in the theater where they could be in harm's way.
    What about the issue of the borders? There has been a lot 
made about Syria, Iran, troops coming in, foreign fighters. 
What steps are we taking to cut that off and what more can we 
do?
    General Petraeus. Sir, that is not a subject that I have 
discussed in any detail at all, again, with General Odierno. 
Again, I was truly trying to avoid any kind of presumptive 
behavior, although at one point when I was being asked about--
during the development of the strategy I thought that I did 
have to talk to our operational commander on the ground and 
confirm that his troops-to-task analysis did require all five 
of the brigades and the two additional battalions in Anbar 
Province, which he said that it did.
    I do know that he shares the concern over the borders. We 
have very briefly discussed it in passing. But I do not know at 
this point in time what the plans are to strengthen the 
defenses, the security, along the Iranian border and along the 
Syrian border in particular.
    Senator Thune. I see, Mr. Chairman, my time has expired. 
Thank you.
    Chairman Levin. Thank you, Senator Thune.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    General, I am sorry I missed a good amount of your question 
and answer period. I was here for your testimony. I had two 
other hearings I had to go to.
    I want you to know I appreciate your diplomacy as it 
regards my colleague Senator Thune's question. The issue of the 
attitudes of people who are serving is in my view not wholly 
appropriate to the political debate. You and I had a discussion 
about that when you visited me. I think there are a number of 
polls out there. There was a poll last year during the campaign 
that showed more than 70 percent of the troops in Iraq believe 
we should be out within a year. There is a poll in the Service 
Times fairly recently that showed a majority of the people in 
the military no longer support the approach of this 
administration in terms of how the war should be fought. I 
think we up here and the senior military are the fiduciaries of 
the goodwill and the service of those people, and it is not 
always appropriate to be bringing them so directly into the 
process.
    I also would like to say for the record that so many of 
these predictions that are being bandied about regarding the 
implications of a withdrawal, first of all, I think play to the 
worst case scenario of a precipitous withdrawal. The others, 
for instance an increase in terrorist activity, decrease in the 
United States standing around the world, and effect on the 
United States economy, the empowerment of Iran, are the exact 
conditions that many of us who were warning against going into 
Iraq were making, which would occur as a result, and in some 
cases have. I just think that is something that should be said 
for the record.
    In your testimony, when you talked about your measures of 
success you mentioned the rule of law, and one of the strongest 
feelings that I have is that law and order is the first 
stepping-stone toward some sort of success here, but we have to 
go toward a point where law and order is being administered by 
the Iraqis, through the Iraqis, on behalf of the Iraqis. 
Otherwise you get a situation similar to Northern Ireland years 
ago, and just the notion of a British soldier on the street was 
enough to inflame the emotions of a lot of people over there.
    That goes to one of the concerns that I have about the way 
that this strategy is being articulated. It is one thing to 
talk about the measurements of success, but I think what we 
really need to hear is a clear articulation of end point. My 
belief is that in terms of our national strategy with Iraq the 
successful end point would be a time when there are no longer 
United States combat forces on the streets of Iraq. Would you 
agree with that objective?
    General Petraeus. Senator, I would. I think the condition 
the rest of the country is in would obviously pertain as well. 
If you achieved no more troops in Iraq but the whole thing just 
came apart at the seams, then I am not sure that that would be 
the objective that you would want to strive for.
    Senator Webb. The removal of combat troops from the streets 
of Iraq?
    General Petraeus. Certainly, over time that is where you 
want to be, yes, sir, again assuming that there is security on 
those streets in Iraq and that we have enabled and helped the 
Iraqis to get to that.
    Senator Webb. Right, but that would be a doable 
articulation of where we want to end up?
    General Petraeus. That is certainly where we want to end up 
militarily, yes, sir.
    Senator Webb. I have another question regarding the 
training of Iraqi forces, and this is just a question from 
having participated in the Vietnam War and watching some very 
fine South Vietnamese soldiers get in many cases culturally 
conflicted by the type of training that the United States was 
bringing to them, and having spent time in Lebanon as a 
journalist and watching the difficulty that they had trying to 
build up a Lebanese army with all the difficult factions very 
similar to Iraq.
    General Petraeus. Right.
    Senator Webb. The question that I have is really asking for 
your observation, having done this. To what extent are these 
Iraqi forces less capable because of the training that they 
have not received from the Americans and to what extent are 
they less capable because of a lack of motivation, for instance 
a fear of affiliating with the central government that is so 
weak, or cultural issues, those sorts of things?
    General Petraeus. I think it is probably more the latter 
than the former, in truth. I think that over time we did build 
a respectable training and equipping program. It was relatively 
comparable to what we do for our own soldiers. Over time we 
have built institutions--military academy, staff colleges, 
basic training academies, branch schools, and all the rest--and 
again, this really does come back to the heart of the issue, as 
I mentioned in my opening statement, that there is not a 
military solution, there is a political solution. Military 
force is, again, necessary but not sufficient, and getting to 
that will component of this equation, what you talk about, who 
are we fighting for, what are we fighting for, is crucially 
important in this case, and that is again the ultimate kind of 
resolution of the problems in Iraq.
    Senator Webb. Do you see that there is any sort of stigma 
associated to Iraqi units that are directly affiliating with 
Americans in different parts of the Iraqi society?
    General Petraeus. Sir, again I would have to march my way 
around the country, but I do not really think that is the case. 
We have very small, relatively small, embedded teams, 
partnership programs, throughout the country with the military. 
I am not sure the same can be said of the police, which is a 
wholly different issue because they obviously are local. They 
come from the local neighborhood, and if you have a situation 
in which intimidation sets in over time, of course, then there 
can be a problem of affiliation between them and what can be 
seen, again, in some of those areas as occupiers.
    You have seen it, I know, in Anbar Province, where it has 
gone back and forth, and right now there appears to be a trend 
in the positive direction where sheiks are stepping up and they 
do want to be affiliated with and supported by the U.S. Marines 
and Army forces who are in Anbar Province. That was not the 
case as little as perhaps 6 months ago or certainly before 
that.
    So again, I think you really have to look around the 
country, and I think we have to be very sensitive and, frankly, 
nuanced in how we operate in those different areas.
    Senator Webb. I wish you well and I look forward to hearing 
your observations after you hit the ground.
    General Petraeus. Thank you, Senator.
    Chairman Levin. Thank you, Senator Webb.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    General, I would like to state unequivocally that I have 
great admiration personally for you and your professional 
accomplishments, and I express my thanks to you for leaving the 
banks of the Missouri and be willing to return, and do so out 
of a sense of deep patriotism and love for this Nation and the 
forces that you will eventually command.
    If you succeed, and I hope you do, fervently I hope you do, 
you will have earned rightfully the gratitude of the people of 
this country, and indeed the people of much of the world, 
because hopefully that would bring stability to this government 
and allow it to exercise the full range of sovereignty.
    But I have to tell you, and this is personal, I go back 35, 
36, 37 years, when as Secretary of the Navy, I sat at that very 
table where you are in this very room on a number of occasions 
and in other rooms of this Congress, trying to explain, since I 
was a part of the civilian structure, governmental structure 
directing that war. I heard the crossfire in the questions and 
in the debates, and this hearing today brought it all back.
    There is no real parallel to the conflicts as such that we 
are experiencing today, but there is this situation of the 
Nation pulling back. How well I remember, with my friend Jim 
Webb here and John McCain bravely in uniform in those days, how 
they came back home to a public that did not greet them with 
the warmth, the respect, and the thanks that they deserved.
    But today it is quite different. This whole Nation is in 
support of the men and women of the Armed Forces. I say to you 
I think every member of this committee--and I know every one of 
them well, on that side of the aisle, on this side of the 
aisle, having had the privilege of occupying that chair for 
some 6 years--we are not a division here today of patriots who 
support the troops and those who are making statements and 
working on resolutions that could be translated as aiding and 
abetting the enemy.
    We are trying to exercise the fundamental responsibilities 
of our democracy and how this Nation has two coequal branches 
of the government, each bearing its own responsibilities.
    I hope that this colloquy has not entrapped you into some 
responses that you might later regret. I wonder if you would 
just give me the assurance that you will go back and examine 
this transcript as to what you replied with respect to certain 
of these questions and review it, because we want you to 
succeed and I am not sure just how the reporting will come out 
of this hearing, nor at this moment am I fully able to judge 
how the people across this land seeing this hearing through the 
lens of that camera will interpret it.
    But in defense of those colleagues--and I am one and I 
accept full responsibility for what I did yesterday in leading 
an effort with my distinguished colleagues, Senators Collins 
and Ben Nelson of this committee, in putting forth a 
resolution. But we did so in response to the President's 
comments to the Nation on the 10th of this month, and I read 
from his transcript:

          ``In the days ahead, my national security team will 
        fully brief Congress on the new strategy. If members 
        have improvements that can be made, we will make them. 
        If circumstances change, we will adjust. Honorable 
        people have different views and they will voice their 
        criticisms. It is fair to hold our views up to the 
        scrutiny of all involved and have a responsibility to 
        explain how the path they propose would be more likely 
        to succeed.''

    Since we just put in our resolution late yesterday--and we 
did so not to have a confrontation with the President, but 
following his advice we had some recommendations, which he may 
or may not accept. They were expressed by heartfelt beliefs 
held by the three of us and we think other members of the 
Senate.
    I feel that we have performed our duty as we see it and 
that time will tell. We purposely did not file it. I am getting 
technical here. We put it in the record, but it is not filed 
before the Senate, and we will withhold any further action on 
our resolution until the Foreign Relations Committee, which has 
primary jurisdiction, reviews certain resolutions before it and 
responsible to the floor of the Senate. Then and at that time 
will we consider whether or not we should make any changes and 
whether we submit it as a resolution as a substitute for that 
promulgated by the Foreign Relations Committee.
    I just urge you to go back and look at that, because I am 
very proud of this committee and I do not want an impression, 
certainly among the Armed Forces, that we are not all steadfast 
behind them, and that sort of a misimpression could create the 
very forces that I witnessed when I was in that chair and saw 
America pull back and eventually the funding problem, which I 
hope we never experience here as a means by which to exercise 
the authority of our equal branch, Congress.
    Now, let us proceed to my point here. This resolution we 
put in looked at options that the President might consider 
using a force level somewhat less than the 20,500. We fully 
support, inferentially, the force levels the President wants to 
send to Anbar. There we are directly in combat with al Qaeda, 
which is so fundamental to this whole war on terrorism 
throughout the globe. But we looked at also the means by which 
the benchmarks could be made very clear to the American public 
most important and to Congress, and as you direct the 
operation, which will be sequenced, the first section of 
Baghdad that you begin to work the plan on, let us see if the 
Iraqis indeed reported for duty in full force, as the plan 
envisions, indeed took the lead, as they say, in the fight, 
which is primarily sectarian violence, and that the political 
structure will not try and abrogate the decisions made by the 
field commanders, both U.S. and Iraqi, as they move forward 
with the plan. Those are very critical to the success.
    In my understanding--and you have been very forthright--you 
have not helped develop this plan. It has been entrusted to 
those commanders in country, understandably. But you in a 
sense, if confirmed, and in the written letter that you advised 
the President, you are accepting the responsibility to 
implement that plan. So I take my comments to my colleagues a 
step further and say, if there comes a time when you feel there 
should be a change to the plan and hopefully, as we recommend 
to the President, a lesser force level of U.S. forces is 
possible, you will address that to your superiors, the 
Secretary of Defense, the Chairman of the Joint Chiefs, and 
hopefully implement that.
    Am I correct in that?
    General Petraeus. That is correct, Senator.
    Senator Warner. Now, finally this question of the sectarian 
violence which concerns me greatly. The root causes of that 
violence are almost incomprehensible. Here we have through 
great sacrifice of life and limb and an enormous sum of funds, 
not only the United States but coalition forces, given this 
nation its sovereignty, and all we ask in return is it take the 
full reins of sovereignty and exercise it.
    My concern is why do we need to put such a heavy emphasis 
of U.S. forces into Baghdad when we have trained 188,000 Iraqi 
military? Why should they not take the preponderance of the 
responsibility to cope with the sectarian violence? They can 
understand the language. They have some comprehension of the 
root causes why a Sunni and a Shia who have lived side by side 
for many years are now at each other's throats and seek only to 
kill and destroy one another.
    Why could not our forces be redeployed into areas where 
those 188,000 Iraqis are geographically in other regions and 
withdraw the Iraqi forces from those regions and put them into 
Baghdad to carry forward this mission, which is important, very 
important, to bring down, hopefully, lower that level, so that 
the people of Baghdad have some quality of life, so that the 
government has some sense of personal security and governmental 
security, so they can carry out the functions of sovereignty?
    Those are the issues that we bring to you. Do you have a 
thought on that? Why could we not simply utilize the Iraqis to 
fight this sectarian violence and not the American GIs?
    General Petraeus. Yes, sir. Sir, first of all, I think that 
the effort in Iraq, in Baghdad, will be predominantly Iraqi. I 
think that as we total up numbers of forces and various 
contributions that they will far outnumber U.S. forces in the 
Baghdad security plan. They are in fact moving forces from 
other places in the country where the troops-to-task situation 
allow that to happen. I happened to meet last night with the 
Iraqi chief of defense staff, their chairman of the joint 
chiefs of staff, General Babakar Zabbari, who is a long-time 
comrade starting up in northern Iraq, where he commanded the 
Pesh Merga that helped us liberate northern Iraq. He then 
eventually was elevated to be his country's senior military 
officer.
    He stated that they are training additional forces--I 
believe it was in the order of 25,000 or 30,000 additional 
military forces--that will also be used to augment the elements 
that are going to Baghdad. Again, he also echoed what I 
mentioned earlier, that the initial battalions are actually in 
Baghdad, according to General Odierno as well, and are starting 
to get set again to contribute to that operation.
    Senator Warner. If they fail to live up to their 
commitments--and I hope they do not--if they fail to meet the 
benchmarks of the initial phases of the Baghdad operation, are 
you prepared to come back to your superiors, indeed the 
President and the Secretary of Defense and others, and say, we 
should not go forward until somehow we get not only the 
assurance but the actuality of their participating in 
successive phases of this Baghdad operation?
    General Petraeus. I am prepared to do that, Senator.
    Senator Warner. I thank you. I wish you good luck and I 
wish you have success.
    General Petraeus. Thank you, Senator.
    Chairman Levin. Thank you, Senator Warner.
    Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman.
    I would like to begin by saying, Senator Warner, how 
appropriate and moving I thought your opening comments were.
    There has been a lot of commentary at this hearing this 
morning about the morale of the troops and about the need to 
defeat our adversaries. I think the best thing we can do to 
support the morale of our troops and defeat our adversaries is 
to have a policy that maximizes our chances for success. It 
would be ironic indeed if we remain silent in furtherance of a 
false unity, in deference to a policy unlikely to succeed. I do 
not see what that would do for either the morale of our troops 
or to defeat our adversaries. So, particularly from your side 
of the aisle, I thought your comments were absolutely 
appropriate and indeed moving.
    Senator Warner. I thank the Senator.
    Senator Bayh. General, I would like to follow up on that 
for a moment. I think Senator Webb was also right, being a 
military man, not to want to drag those of you in uniform into 
political debates. So I am not going to ask you about specific 
resolutions or all that kind of thing. But the issue of troop 
morale is something that you are an expert on and that has been 
raised here today. So I would like to ask you very plainly: 
Does a hearing like this, with the diversity of opinion that 
has been expressed here, undermine the morale of our troops?
    General Petraeus. Senator, I seriously doubt that our 
troops are sitting watching C-SPAN 3 in Iraq right now.
    Senator Bayh. Further testimony to the intelligence of our 
military men and women. [Laughter.]
    General Petraeus. Sir, I do not know how much attention 
they are paying to this debate.
    Senator Bayh. Well, the issue has been raised. It is a 
philosophical question, not a political one, but it is 
important because every American, as Senator Warner was saying, 
cares about the morale of our troops. So does diversity of 
opinion in our society about the right thing to do in Iraq, 
that maximizes our chances for success, does a healthy debate 
about the right course that maximizes our chance of this 
turning out well, does the freedom inherent to a democracy, 
does that make us weak?
    General Petraeus. Sir, I think I stated earlier how 
important I think free and open debate and the marketplace of 
ideas and all the other great qualities that our country has 
achieved are in fact to our country. I think some of the 
soldiers will be out there saying, yeah, go get them. Some will 
be saying, what is that all about. Some will just keep their 
head down and go about their mission.
    Senator Bayh. So what you are saying, General, is that our 
men and women who wear the uniform really are a lot like 
Americans back at home? They have diverse opinions, too.
    General Petraeus. Sir, that is where they come from.
    Senator Bayh. They are probably sophisticated enough to 
take all this in and accept it for whatever it is worth.
    General Petraeus. Sir, I think that is an accurate 
statement.
    Senator Bayh. I thought so and I am glad to hear you say 
that.
    What is behind a lot of this--and you heard some of this 
also, I have heard there are concerns about micromanaging, and 
I think the Vice President said the other day you cannot run a 
war by committee. But there is a lot of history here--I think 
you have alluded to some of it--a history of mistakes by the 
civilian leadership, a history of the Iraqis, who you quite 
accurately indicated and it was universally the opinion that 
Senator Clinton and I heard when we were in Iraq that the 
Iraqis are essential to the success of this mission and yet 
they have been too often unable or unwilling to step up and do 
their part. There is that history we bring to this.
    So to deal with both the mismanagement of this on our 
civilian side here and the lack of resolve on the part of the 
Iraqis there, many of us feel that it is our responsibility now 
to step up and to provide better direction to this whole thing. 
That is what you hear going on.
    So with that by way of background, you said a couple of 
interesting things that I think were both accurate, but I would 
like to combine them in a little bit different way. At one 
point in your testimony you said you thought that at the bottom 
of all this at its essence it was a test of wills; is that 
correct?
    General Petraeus. Sir, that is correct. I think any such 
endeavor is a test of wills at some point with the enemy. Now, 
there are many factors in the test.
    Senator Bayh. This is what I would like to get to. I think 
that statement is correct, but I want to combine it with 
another statement that you have made and I hear repeatedly from 
our military men and women, which is, look, no matter how long 
we stay or how hard we fight or how much we spend or how many 
of us die, it is ultimately up to them.
    I think what you were about to say is it is not only a test 
of our will, that is a part of it, but it is also fundamentally 
a test of the Iraqis' intentions, whether they are willing and 
able to do what it takes ultimately to make this successful. Is 
that not also true?
    General Petraeus. It is, and I have made that point, of 
course, several times today. This is at the end of the day up 
to the Iraqis.
    Senator Bayh. I would like to ask a couple questions about 
that, because my strong impression is that the American people 
are willing to be constant and strong in support of a policy 
they believe is likely to work, but they can also understand 
when things are not working too well and when a change of 
course is in order, and that is when they begin to hesitate and 
withdraw their support.
    So the questions I would like to ask today get to the heart 
of what do the Iraqis intend, why should we have confidence in 
them, and what steps can we take to maximize the chances that 
they will do what is in their own interests and maximize the 
chances that our efforts there will succeed in helping them.
    I would like to get to what Senator Levin mentioned to you 
a couple of times. You have spoken about consequences. We have 
talked about benchmarks and timelines, but ultimately there 
have to be consequences. Otherwise I am afraid the Iraqis will 
not take us seriously and the American people will conclude 
without consequences this really is more of the same.
    You spoke generally about, if things are not going so well 
we will have to look at what we can do for them and what we 
might withhold from them. That is a pretty general statement. 
Can you be more specific than that, because I am afraid without 
more specifics----
    General Petraeus. Certainly, yes, sir. I can give examples 
of in fact what I did in the past. As the Multinational 
Security Transition Command-Iraq commander, the train and equip 
program commander, there was a case toward the end of my time 
in command where leaders of the major crimes unit in Baghdad 
were found mistreating detainees. So I went to the minister of 
defense with the evidence of this and announced that we were 
withdrawing all financial, logistical, adviser, and equipment 
support for that element until he arrested and tried those 
individuals. He did do that, and we then over time resumed the 
assistance that we were providing to them. That is an example 
of that.
    There are positive reinforcements, if you will. The Iraqi 
special operations force brigade is arguably the best special 
operations unit in the entire region. They are among the most 
experienced. They are the ones in many cases who have been 
conducting the operations in recent weeks and months to go 
after some of the senior leaders of the Jaysh al-Mahdi, Moqtada 
al-Sadr's militia, and they have done so well that we 
continually reinforce that with increasingly better, more 
capable equipment, better facilities, better quality of life, a 
special operations bonus, and so forth.
    So again, there are two ways of going at that and those are 
examples of those.
    Senator Bayh. Those are the kind of specific consequences 
we are looking for, but that deals with the military side of 
things and a lot of this is going to depend on the Iraqi 
political leadership.
    General Petraeus. Correct.
    Senator Bayh. Which, when Senator Clinton and I met with 
the Prime Minister last week, he said to us what I understand 
is essentially what he said to the President last November, 
which is: Look, we do not want your brave soldiers dying here, 
either; I want you to leave Baghdad. Just give us heavier 
weapons, you guys withdraw to the periphery, and let us do what 
we need to do.
    Now we have adopted a policy diametrically opposite to 
that. Why does he have such a different opinion about what 
needs to be done to secure Baghdad?
    General Petraeus. Sir, I have not had a chance to talk to 
Prime Minister Maliki. I do not know what his view on this is. 
I had actually been told that he had supported it after 
conversations with the President.
    I do not know. I will have to determine, if confirmed, once 
I get on the ground.
    Senator Bayh. I think when you do talk to him, General, you 
will find that he will. When I pressed him and I said, ``well, 
do you then think that our policy of adding more troops is the 
wrong one?'' He started backing up and he said, ``well, that is 
not exactly''--but you could tell what he really meant. If he 
had first choice, he would be doing things differently there.
    The reason that is important to me is that I am looking for 
some insight into is he willing to do what needs to be done 
here. How can we ask them to make different political decisions 
in support of a policy they may not really embrace?
    Let me give you a couple of other examples just quickly. We 
arrest people affiliated with Iran, Iranian agents, sometimes 
we think implicated in the explosive devices that are killing 
Americans. The message from the Iranian government is that we 
have to let them go. He has publicly resisted the setting of 
benchmarks and yet he endorses the steps that need to be 
undertaken. Well, if you really endorse the steps that need to 
be undertaken, why would you resist being held publicly 
accountable?
    All that leads me to wonder, do they really have it in them 
to make the hard decisions that need to be done? So my question 
to you is, with the situation about the Iranians, his 
resistance to benchmarks, and all that kind of thing, what 
leads you to be confident of these people?
    General Petraeus. There have been some reasonably positive 
developments in recent weeks actually where they have hung 
tough, have not released one of the very senior Moqtada al-Sadr 
affiliates, where their forces have reported, where there are 
developments in Anbar Province and so forth. But again, I am 
with you in the fact that only time will tell, Senator. If 
confirmed, I need to get back to a country that I have not been 
to in 16 months and determine what the will is.
    As I mentioned earlier, if I detect that they do not want 
it as much as we want it, I will report that to my boss.
    Senator Bayh. That is why Senator Levin and I and others 
keep getting back to the notion of consequences, because all 
too often in the past they have said the right things, but they 
have not done the right things, what has led us to question the 
strategy of constantly reassuring them to try and build up 
their confidence so that they will have the security to do the 
difficult things. It has led some of us to conclude that 
perhaps a different approach to encouraging them to do the 
difficult things is in order.
    So my time has expired, but my last question to you is, you 
said that, I think the words that you used were, ``that the 
responsible elements among the Iraqis did not want us to 
leave.'' I think that is what I heard you say, ``the 
responsible elements did not want us to leave.''
    General Petraeus. There are thousands, actually tens of 
thousands, of Iraqis who have died actually defending their 
country, far more than our soldiers, each of which is a tragedy 
for that family.
    Senator Bayh. Here is my parting question, and again it is 
by way of trying to figure out: What can we do to get them to 
do what is in their own best interests here, what needs to be 
done? So if you are telling me that the responsible Iraqis do 
not want us to leave precipitously, but at the same time you 
then said that if we talk about redeployment that would have an 
adverse consequence on them, so my question to you is: If they 
want us to stay, but then we say, look, if you do not do the 
right things we may not be able to stay, why would that not 
lead them to do the things necessary to getting us to do what 
you are telling us they want us to do, which is to remain long 
enough for them to make a go of it?
    How can we hold those two thoughts at the same time? They 
want something, but when we tell them we may take it away it 
does not have an impact on their thinking.
    General Petraeus. Their challenge right now, Senator, I 
believe is that they are in a capital city that is insecure, in 
which citizens make life or death decisions on a daily basis, 
just trying to get to work, get their kids to school, get some 
food. You cannot come to grips with the tough decisions that a 
government has to resolve in a situation like that. Their 
security forces have not been able to deal with the rise in 
violence in the wake of the bombing of the mosque in Samarra, 
which unleashed a tremendous amount of tit for tat and back and 
forth violence. The objective is to get a grip on that, to 
provide improved security, to give the Iraqi government the 
space and the time to come to grips with these political 
decisions that will ultimately carry them forward.
    Senator Bayh. General, I support your nomination and I wish 
you well.
    General Petraeus. Thank you very much, Senator.
    Chairman Levin. Thank you, Senator Bayh.
    Now, after Senators Martinez and McCaskill there will be a 
second round. The amount of time will not be as long as 8 
minutes, but we will work through lunch. Do you have a problem 
with that?
    General Petraeus. No, sir.
    Chairman Levin. Or do you need a break for other purposes?
    General Petraeus. No; ready to go, sir.
    Chairman Levin. Thank you.
    Senator Martinez.
    Senator Martinez. Good morning, General. Congratulations on 
your nomination and thank you for your distinguished service 
and your willingness to undertake this very difficult 
assignment. I know I echo what all others have said, but I have 
never heard such unanimous praise here today and in other 
quarters of your service, your capacity, and your capability. 
So I thank you for your service and for your willingness to 
undertake this very difficult task.
    Chairman Levin. Senator Martinez, forgive me for 
interrupting. But while we have as many folks with us as 
possible, I just want to inform all of us that the committee 
will be conducting a hearing next Tuesday, January 30, to 
consider the nomination of Admiral William Fallon to be 
Commander, U.S. Central Command, and will be conducting a 
hearing on Thursday, February 1, to consider the nomination of 
General George Casey to be Chief of Staff of the Army. I did 
talk about these dates with Senator McCain, so he knew those 
two dates would be used.
    Forgive the interruption, but I wanted to get that out.
    Senator Martinez. Getting back to the topic at hand, 
obviously the new plan for Iraq comes after months and months 
of political commentary and debate, much as has been discussed 
here today in the open democracy that we are, for there to be a 
different plan, a change in Iraqi policy. Now we do have a new 
plan for Iraq.
    My understanding of the plan is that it is not just an 
increase in the number of troops, which I might point out when 
accomplished will not put us at a level of troops in Iraq which 
is even equal to the highest number we have had in the course 
of this effort; is that correct? I mean, our troop levels in 
Iraq have gone up and down.
    General Petraeus. They have. I believe that there have been 
periods when we have had more than we will have at the end of 
this particular increase.
    Senator Martinez. The focus has been on the troop levels, 
but there actually are more issues related to this new plan 
than just an increase in troops. To be clear now, the troops 
that are going into Baghdad are not going as American forces at 
the front end. My understanding from the President's 
explanation of this new plan is that the Iraqis will be at the 
front and that they will not be taking a back seat; they will 
be in the front and center.
    My understanding further is that troops have already begun 
to move into Baghdad and that the Maliki government has carried 
out the first benchmark, which is will the Iraqi troops report, 
and they have begun to report; is that correct?
    General Petraeus. The initial elements, yes, sir. Again, I 
want to be clear that not all, but their schedule is not for 
all of them to be there by any stretch of the imagination 
either.
    Senator Martinez. But they have begun to be there?
    General Petraeus. They have indeed, yes, sir.
    Senator Martinez. Second, that there are political as well 
as economic development, reconstruction elements to this plan.
    General Petraeus. That is correct.
    Senator Martinez. Those are equally important and in fact 
you have emphasized, as I would emphasize, the fact that there 
needs to be a political settlement among the Iraqis the 
distribution of the oil revenues, amendments to the 
constitution. Those are important things.
    General Petraeus. Correct, sir.
    Senator Martinez. So when some here might say that in fact 
we need a political settlement, we are all in agreement that 
there needs to be a political solution to the problems in Iraq. 
The question really is, can these political solutions take 
place in the midst of chaos, killing, and everyday violence at 
levels that are really unsustainable and unimaginable. So it 
seems to me that it is logical to suggest that we have to 
dampen down the violence so that we can give an opportunity for 
there to be a political settlement and an environment conducive 
to a political settlement. Secondarily, it would seem to me to 
be fairly difficult to be involved in the business of 
reconstruction, water, sewer, electricity, garbage pickup, et 
cetera, when you in fact have a chaotic and disruptive 
situation. So it seems to me, frankly, no different than it 
would be in an American city if all of a sudden we had 
lawlessness and a breakdown in the rule of law. It would be 
rather difficult to have economic development programs in a 
neighborhood.
    General Petraeus. Correct.
    Senator Martinez. One of the issues that has troubled me 
since I was in Baghdad in October was the fact that I saw a 
serious political division among those who are attempting to 
run the Iraqi government. Particularly, I was troubled by the 
fact that some ministries seem to be under the political 
control of Moqtada al-Sadr and that those ministries, 
particularly the ministry of health, are not only not 
cooperative, but would not even meet with Americans, would not 
even discuss the issues of the day with Americans.
    Is there any sign or any indication that you have or do you 
share my concern that it would be impossible for us to see a 
united Iraqi government until issues like that are resolved?
    General Petraeus. I share your concern, Senator.
    Senator Martinez. I have heard it repeatedly said by other 
distinguished Members of the Senate that the generals do not 
support this plan. Again, when the President was explaining 
this plan to me and others, he mentioned that General Casey has 
had a hand in the development of this plan. My understanding is 
clearly that you do support this plan and believe it has a 
reasonable chance of success.
    General Petraeus. That is correct, sir.
    Senator Martinez. So when some would say that generals do 
not support it, I suppose one can find generals who might not 
support it, particularly maybe a retired general. But those of 
you in charge with carrying out the mission do believe that it 
has a reasonable chance of success?
    General Petraeus. That is correct, Senator.
    Senator Martinez. General--and I will conclude with this, 
Mr. Chairman--I have heard the importance of the Senate debate, 
that the Senate is a democratic institution where we all have a 
high degree of responsibility, and also I think sometimes an 
elevated self-importance. But I also have heard something that 
I find disturbing here today, which is the suggestion that 
civilian leaders of our Department of Defense at a time of war 
would either give knowingly false or misleading testimony to 
this Congress. I find that request of the General to stand up 
and speak to that issue to be frankly unnecessary. Just like I 
do not besmirch the opinions of those in the Senate who might 
differ with this current plan or question their patriotism, I 
also think it is unnecessary to question the veracity or the 
seriousness of purpose, the integrity or the honor of the 
people that we have confirmed to be the civilian leadership in 
the Department of Defense. I just found that troubling and not 
in keeping with the level of discourse that the colleague from 
Virginia was expressing about the issues of the day.
    I too believe that if someone disapproves of this plan and 
believes it is a dead end that they too then have a 
responsibility to seek to stop the action and not just send a 
message. I think it calls for further and stronger action than 
just a message.
    General, I wish you well. I believe, like you do, that this 
is a plan that has a reasonable chance of success. I agree and 
believe, like you do, that the consequences of failure in Iraq 
are serious and would do great harm to our Nation. So my best 
hopes and I know those of this Nation go with you in your new 
mission, and look forward to working with you to help you 
succeed as we all try to succeed in this very difficult 
struggle, but one which I think is inextricably tied to the 
overall global war on terror. I thank you for your patience 
today.
    General Petraeus. Thank you, Senator.
    Chairman Levin. Thank you very much, Senator Martinez.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    I first have to comment on the irony of those who are 
critical of any resolutions that are being brought forward 
concerning this latest plan in Iraq. We are ostensibly spending 
hundreds of billions of dollars and sacrificing the most 
precious lives imaginable in this cause, to build a democracy. 
In November, I think something much stronger than a resolution 
came forth from this country. It was not a Senate resolution. 
It was an election, and that election confirmed the strong 
foundation we have in this country for the democratic process.
    I think expressing our opinions through resolutions is 
exactly what keeps this institution and the people we represent 
living in a wonderful country because of the democratic 
institutions. I think it is ironic that we would criticize 
those resolutions in light of the fact that they merely reflect 
what the elections did in this country, and that was say to the 
government: We think what you are doing is not working and it 
is not what we think this country should be doing. So I wanted 
to comment on that irony.
    I also wanted to talk to you a little bit, General. First 
of all, you and I had a chance to visit, and we will miss you 
on the banks of the Missouri.
    General Petraeus. Even if it is on the wrong bank? 
[Laughter.]
    Senator McCaskill. Even though you are on the Kansas side. 
We will not go into that. We certainly claim Leavenworth in the 
greater Kansas City area and know the kind of work you have 
done at Leavenworth. I noticed your wife in the paper the other 
day working on the task force over in Topeka on the payday loan 
issue; please, thank her for that work with Governor Sebelius.
    General Petraeus. I will, Senator.
    Senator McCaskill. I read in the paper this morning about 
Company C of the 2nd Battalion, 12th Cavalry Regiment, that is 
in Gazaliyah and they have begun this work and there are 105 of 
them there, and this article talked about that they had a 
firefight the other night and, instead of moving on to another 
patrol, they stayed because they are there defending what is 
now their home. They have set up base there and they will be 
operating out of this neighborhood, a very dangerous 
neighborhood, where there is the fighting between the Sunnis 
and the Shia.
    This article was very troubling to me for several reasons. 
I think one, it was on a human level where it discussed one of 
your observations of soldiering in Iraq in the Military Review 
article that Senator Collins referred to, I also read, and one 
of it was that you cannot do too much with your own hands. This 
article points out that right now our American military find 
themselves as jailers, doctors, construction workers, garbage 
men, guardians, and detectives. It points out with specificity 
that there is a young 4-year-old girl that was brought into the 
base and the reason she was brought there, she was terribly 
ill, was because her parents did not want her taken to the 
nearby hospital because it was Shiite and they feared that 
their entire family would be killed while their daughter's life 
was being saved in this hospital. So as a result, our medic, 
our military medic, was caring for this 4-year-old girl.
    Now, I think that brings home in a way that we cannot talk 
about in terms of military protocol the incredible, huge 
nature, the enormity in every sense of the word, of this 
problem. I think the part of the article that was most 
troubling to me was when they talked about ``the soldiers also 
got their first glimpse of the green Iraqi forces who will 
share their mission and eventually, they hope, take it over. 
The soldiers talked about them with a mixture of bemusement, 
disdain, and mistrust.''
    `` `You could talk about partnership, but you would be 
lying,' said one soldier who asked that his name not be used 
for fear of punishment by his superiors.''
    When I read your article on counterinsurgency and your 
observations, no fewer than 6 of the 14 lessons learned deal 
directly with what we have talked about primarily in this 
hearing this morning, and that is what else is working over 
there besides the excellent work of the American military? What 
I would ask of you is your willingness to be very aggressive to 
report back on these six requirements that you state that are 
necessary to effectively fight counterinsurgency. I am going to 
briefly go through those six for the record:
    ``One, do not try to do too much with your own hands.''
    ``Two, increasing the number of stakeholders is critical to 
success.''
    Number seven, the third one, ``Everyone must do nation-
building.''
    ``Help build institutions, not just units.''
    Another one: ``Success in a counterinsurgency requires more 
than just military operations.''
    Finally: ``Ultimate success depends on local leaders.'' 
That one really kind of sticks in my craw because that is where 
the rubber is going to meet the road in this plan. It is 
terribly unfair what you are being asked to do and what our 
military is being asked to do, because basically we are asking 
you to succeed basically ignoring six of your own lessons 
because they are not there now. We do not have the local 
leaders there. If we did we would not be getting the mixed 
signals we are getting from Maliki and we would see more 
confidence that our military would have in the green forces 
that ostensibly are going to be leading this.
    I would like you to comment on what this soldier said and 
the fear I have that what we are going to hear in Washington is 
never going to match what really is happening on the ground in 
Iraq.
    General Petraeus. First of all, in that case--again, you 
were reading an article. I did read that article this morning. 
It does not strike me as the application of, if you will, the 
objective plan when it is fully developed and when we have 
substantially more forces on the ground, in a case where you 
learn about the area in which you are going to operate, plan 
with the Iraqi forces with whom you will partner, determine how 
it is that you are going to secure that area, go in, do clear 
it, again understand the businesses, the local leaders, 
whatever else it is, the sectarian tensions and so forth, and 
then in fact ensure the security of that area so that you can 
do the hold and the build phases.
    Certainly those subset of the observations from my own time 
soldiering in Iraq are observations that inform me as I 
contemplate going back over there, if confirmed. There are 
others actually that are also important in this. Again, the way 
we carry this out is hugely important so that you do not have 
just a company that is an outpost in an area that does not have 
perhaps adequate security, although it sounds to me as if the 
one thing they did do was certainly prepare their force 
protection for 3 days before they occupied that location.
    So that is the first observation that I would offer. The 
second is, again as I have pledged several times already today, 
if I think that they do not want it as much as we do, at some 
point I will tell my boss that and I will tell you that if it 
happens to come in one of our updates or something.
    Senator McCaskill. I do not have any time left, but let me 
briefly also talk a little bit about the money, the CERP. I 
discussed this with Secretary Gates and General Pace when they 
were here. The CERP I think is important, but the problem I 
have with it, it is a little bit good money after bad. We have 
spent so much money trying to build and so much of what we have 
spent--I will not even get into the incredible problems of 
contracting and no accountability. I will not even put on the 
auditor's hat here.
    I am just talking about how much that we have actually done 
that has been destroyed after we did it and the fact that if 
the Iraqi military is going to stand on its own and be lead in 
this that they should be the ones distributing CERP funds, not 
the American military.
    Are you aware of any plans to train the green forces, the 
Iraqi forces, to begin to distribute some of the $10 billion in 
surpluses that the Iraqi government has to begin winning the 
hearts and minds of the people especially in these mixed 
neighborhoods, that they can look to the Iraqi military as a 
fair place to try to build neighborhoods regardless of what 
area of town they are in?
    General Petraeus. I have actually heard that discussed. I 
do not know of plans to do that, though. Again, my discussions 
with folks over there have really been limited to just getting 
that amount of information that I needed to provide input when 
I was consulted during the development of the new strategy.
    I think it is something that is very worthy of 
consideration. I think that certainly again they have to spend 
their money. One of the reasons we have to have a comprehensive 
effort is to help them build the capacity to spend their money, 
because they have not been able to spend all that they have on 
behalf of the Iraqi people.
    If I could, with respect to CERP, CERP is great for the WPA 
types of programs, but we will also look very hard for self-
sustaining types of businesses and industries and so forth that 
we can either help revive or build as well. I think those are 
very important in this endeavor, so that you do not just pay to 
have the streets cleaned again, which is a notable 
accomplishment, but again 6 months from now if you do not 
achieve what you need to achieve with the ministry of public 
works you will be back where you were before.
    Senator McCaskill. Thank you and we all wish you, not just 
Godspeed, but success and health.
    General Petraeus. Thank you, Senator.
    Chairman Levin. Thank you, Senator McCaskill.
    General, I think everybody in Congress and every American 
wants us to succeed, wants to maximize the chances of success. 
The question is how best do we do that. There is no difference, 
however, between people on that issue. So it seems to me for 
you or others to say how important it is for us to succeed, 
that is the point, which is that the course that we have been 
on is a course towards failure. The question is how do you 
change course. The importance of changing course, how do you 
maximize the chances of success. Are you with me so far?
    General Petraeus. I am, Senator.
    Chairman Levin. The next question then is how do you change 
course once you decide that the course you are on is not 
working, despite those claims of the Vice President that the 
insurgency was in its last throes--that was a couple years 
ago--despite the claim of the President just a few months ago 
that we are absolutely winning in Iraq, when it is clear now 
that even he acknowledges we are not winning in Iraq.
    So for folks who talk about just we cannot fail, as though 
somehow or other that automatically means that we follow the 
President, it seems to me there is a totally illogical 
conclusion. We have been following the President's course. It 
has been a course that has led us towards failure and the 
President did not recognize that apparently until after the 
American people told him that.
    So success is our goal and the question is how. There are 
two different approaches towards that. One is increased 
military commitment, that somehow or other giving the Iraqis 
more breathing space will make it more likely that they will 
reach a political settlement. The other approach is, no, they 
have had plenty of breathing space, 3\1/2\ years; they need 
pressure. They need to be told that it is not an open-ended 
commitment, as the President finally said, at least 
rhetorically, that it is not an open-ended commitment, that 
they must reach a political settlement if this thing is going 
to be resolved.
    Now, does additional military presence contribute to the 
Iraqis reaching a political settlement or does embedding our 
troops in neighborhoods, number one, create a lot more targets, 
and does it take the Iraqis off the hook? Does it tell the 
Iraqis that we are going to increase our military presence, 
does that tell the Iraqis that somehow or other their future is 
in our hands rather than their own? That is an honest debate, 
it seems to me, which is the heart of the matter here.
    So far would you agree with that?
    General Petraeus. Yes, sir.
    Chairman Levin. So it is not a disagreement over whether it 
is important to succeed. It is not a disagreement over whether 
failure is going to hurt in a whole host of ways. The question 
is what are the Iraqis going to read into increased American 
presence in their neighborhoods? What will they take from that?
    Now, my understanding is the Prime Minister of Iraq went to 
Jordan and proposed to our President that the Iraqis take over 
the security of Baghdad. Is that your understanding?
    General Petraeus. Sir, I have heard press reports of that. 
I do not have firsthand knowledge of that.
    Chairman Levin. Have the Iraqis asked us for more American 
troops? I know they are supporting the President.
    General Petraeus. Sir, I do not know.
    Chairman Levin. You do not know if they have asked us for 
more?
    General Petraeus. I do not, no, sir.
    Chairman Levin. All right. One of the many things that our 
troops deserve, it seems to me, beside all the equipment, all 
the training, everything we can give them to succeed, support 
for their families, it seems to me that one of the things that 
our troops deserve is our honest assessments, and that they 
make a distinction between supporting them and supporting the 
policies of the administration. Would you agree with that?
    General Petraeus. Yes.
    Chairman Levin. They make a distinction, because I have met 
with the troops I do not know how many times now in Iraq and I 
tell them, look, I have been a critic going in, I have been a 
critic of the way this thing has been run, but, folks, you have 
the support of every Member of Congress. We are not cutting 
your funding. We are going to support you as long as you are 
there. The question is how do we succeed so you can come home. 
That is the question.
    General Petraeus. Right.
    Chairman Levin. They welcome an honest debate. I have 
gotten so many letters and comments from troops saying, this is 
worthy of your debate, you are making an honest assessment, 
keep at it. So many of our troops have said that, and you have 
heard about public opinion polls so far.
    I just want to make sure that you are not intending to be 
interpreted as supporting a resolution or opposing a 
resolution, number one, by your testimony. Is that correct?
    General Petraeus. That is correct, sir.
    Chairman Levin. Number two, that you acknowledge that the 
goal of those who want to put pressure on the Iraqi leadership 
to step up and reach political settlements, is it the same goal 
that you have, which is that political settlement and political 
settlement alone by the Iraqis is our ultimate way of providing 
security and success in Iraq?
    General Petraeus. Correct, Senator.
    Chairman Levin. Okay. Can we have a functioning democracy 
in Iraq without political leaders in Iraq making the 
compromises that they need to make?
    General Petraeus. No, sir.
    Chairman Levin. You made a reference to the fact that there 
has been incremental progress recently, that there has been 
apparently a draft of a----
    General Petraeus. A couple of encouraging signs, I think 
would be a way to characterize it, sir.
    Chairman Levin. That would be on the political front in 
terms of reaching apparently a draft on the oil revenue?
    General Petraeus. A draft on the oil revenues, yes, sir.
    Chairman Levin. So that they have been able to make at 
least that incremental progress without a surge; is that 
correct?
    General Petraeus. That is correct, sir.
    Chairman Levin. President Talabani of Iraq has said that 
American troops are going to be there as long as the Iraqis 
want us there. Is that accurate? Should that be our decision, 
not their decision, as to how long?
    General Petraeus. I wonder if he--yes, sir.
    Chairman Levin. Are you familiar with that?
    General Petraeus. I am not, sir.
    Chairman Levin. All right. Is it our goal to pacify the 
militias or just to disarm them? Not ``just''; let me restate 
that because it is not just to disarm. Is it our goal to pacify 
Baghdad or to disarm the militias, or both?
    General Petraeus. Sir, the security in Baghdad can only be 
achieved by any extralegal individuals being off the streets. 
So it does not matter if they are international extremists, 
insurgents, Sunni Arab insurgents, violent criminals, militia 
members, or what have you. They all are those who violate the 
idea that the Iraqi government has the legitimate use of force.
    Chairman Levin. If the militias merely reduce their 
visibility in Baghdad or move their operations to areas where 
Iraqi and U.S. forces are not present in strength, does that 
accomplish our goal?
    General Petraeus. No, sir. In fact, there has been 
substantial discussion about the follow-on, the disarmament, 
the demobilization, and the reintegration (DDR) of various 
militia elements.
    Chairman Levin. Prime Minister Maliki has asserted that 
U.S. refusal to provide the Iraqi security forces with weapons 
and equipment hurt their ability to secure Baghdad. Do you 
agree with that?
    General Petraeus. Sir, I need to look at that. I did 
actually look over the weekend at the list of weapons and 
equipment that has been provided by the U.S. and bought with 
Iraqi money as well. It is actually quite substantial at this 
point. There is certainly the need for more and as they do in 
fact train more obviously there will be an additional 
requirement for equipment.
    There is a requirement for more robust and additional armor 
protection and heavier weaponry for some of their elements. But 
we have actually provided quite substantial weaponry so far.
    Chairman Levin. Would you let us know about your assessment 
on that?
    General Petraeus. I will, sir.
    Chairman Levin. Because that is quite a statement, when we 
have the Prime Minister of Iraq saying that the problem is that 
we have not given them the equipment so that they could secure 
Baghdad. That is quite an allegation.
    General Petraeus. Sir, they have actually committed $1.5 
billion to foreign military sales actually with the U.S., for 
what that is worth, and that should enable them also. This, I 
am told, will be the first year in which they spend more in 
their defense budget than we spend in our train and equip 
budget.
    Chairman Levin. Are you going to plan for the redeployment 
from Iraq of U.S. forces beyond the surge as just part of the 
planning process?
    General Petraeus. Sir, obviously you have to have 
contingencies. You are always looking at what you are doing. So 
the answer to that would obviously be yes.
    Chairman Levin. With that qualification and understanding.
    General Petraeus. Yes, sir.
    Chairman Levin. Finally, I want you to go back in time. We 
have spent I think all of this morning pretty much talking 
about where we are at and where we are going, the differences 
that exist on that issue or those issues. I want you to go back 
to the time when Ambassador Bremer decided to disband the Iraqi 
army and to also deBaathify to the extent that he did.
    Did you agree, if you can put yourself back in time, with 
those decisions?
    General Petraeus. Sir, I would like to qualify it. I will 
say no, but I would like to qualify it, because there is really 
some nuance to this. Ambassador Bremer is actually correct when 
he says, first of all, they had already disestablished 
themselves by and large. They had not done what in fact one of 
the assumptions, or at least you would hope that a number of 
them would remain in their own barracks, safeguard their 
equipment, turn the turrets or their tanks over to the rear, 
and just wait to be partners with us. That did not materialize 
and unfortunately a lot of their stuff was looted as they went 
out the door.
    So there was really not a formally constituted military at 
that time, although it certainly could reassemble. It did 
reassemble. The challenge--and beyond that, it had vast numbers 
of very high-ranking officers. Arguably, it was to some degree 
Saddam's jobs program for very senior officers. In Nineveh 
Province alone, there were 1,100 brigadier generals and above, 
for example, although there was only one army corps.
    Having said that, the challenge was of course with this 
army that Iraq perhaps did not need in the long-term was now 
unemployed. It was really the issue of how long it took to 
announce the stipends, the follow-on opportunities for them, 
how they would be able to feed their families, and again what 
their future held, and to some degree a degree of disrespect, 
frankly, for an institution that in the Iraqis' eyes was 
perhaps the one institution that had been the least corrupted. 
I am talking about the military now, not the Special Republican 
Guards or some of these other organizations.
    That period between the announcement of the 
disestablishment and the announcement of stipends, was roughly 
5 weeks or so. That was a difficult period in Iraq. All of the 
military commanders in Iraq at that time registered their 
concerns, because in fact the former Iraqi military did 
assemble and it made their views very clearly known, and 
eventually those turned into riots and eventually some were 
actually killed outside the Green Zone and so forth before the 
stipends were announced.
    Crowds are a very big challenge when you are in an endeavor 
like that and you really do not like to see crowds because 
someone can shoot out of a crowd and then you have a real force 
protection issue on your hands, and that did in fact 
materialize during that time, and arguably that may have been 
where some of the initial elements of the insurgency began to 
gain strength.
    With respect to the deBaathification policy, clearly Iraq 
had to have a deBaathification policy. There is no question 
about that. Ambassador Bremer did intend for there to be not 
just deBaathification, but in fact exceptions to that policy in 
substantial numbers that would amount to reconciliation.
    In fact, when I had a conversation with him in Mosul in the 
summer of 2003 he gave the 101st the authority to allow the 
Iraqis to conduct a reconciliation process, for which we did 
provide judicial oversight. That was conducted initially for 
Mosul University and then some of the others. The key there was 
to get the paperwork down to Baghdad to the deBaathification 
committee, and unfortunately a process that had a fair degree 
of rigor to it--I think it was less than 60 percent would have 
been fully ``reconciled,'' and none of them would have gone to 
leadership positions. I had already personally fired the higher 
level Baath official who was the head of the university. But 
for these individuals, say 120 or so professors, many of whom 
were educated in western universities, which is one reason they 
had to be Baath Party members, to go overseas.
    So that was a real challenge, and all the military 
commanders did register their concerns during that time, 
because it was a period when obviously many of those affected 
were Sunni Arab, perhaps most, although there were Shia in the 
fold as well. But in the areas where most of the U.S. 
commanders were, that affected Sunni Arabs, and that obviously 
caused significant challenges for us.
    Chairman Levin. Our commanders then registered their 
concerns about that policy?
    General Petraeus. Yes, sir.
    Chairman Levin. In the way you have discussed?
    General Petraeus. Yes, sir.
    Chairman Levin. Thank you.
    General Petraeus. Again, to be fair, there was an intent to 
do reconciliation. Ambassador Bremer himself has on several 
occasions noted that he had intended to do that, wanted to do 
that, and was just not able to get it done because of the 
committee.
    Chairman Levin. Of what?
    General Petraeus. The deBaathification committee of the 
Iraqi Governing Council.
    Chairman Levin. Who was head of that committee?
    General Petraeus. I think it was Ahmed Chalabi, sir.
    Chairman Levin. Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    Thank you, General Petraeus. Your testimony has been very 
impressive. I must say that I was particularly impressed when, 
after 4 hours in the chair, Senator Levin offered you a chance 
for a personal break and you said it was not necessary. That is 
impressive. I am going to try to be brief.
    I do want to first generally respond to something Senator 
Levin said and agree with him, in case there is any 
misimpression. The two of us have disagreed on some of the 
policies we have followed in Iraq, and we disagree today. But 
one thing we agree on is that both of us are looking for a way 
to succeed in Iraq. We just have different paths that we think 
will work better. I would say that is true of all the members 
of this committee, and I would add that insofar as some 
sensitivity was expressed earlier I am sure all the members of 
the committee support our troops who are there and would not do 
anything to oppose them.
    Having said that, what I did earlier was two things. One is 
that, in response to questions Senator McCain and I asked about 
the possible impact of a Senate resolution of disapproval, I 
thought you were clear, which is that you really did not say 
much about the impact on the morale of the troops. You said in 
the negative almost, that you could not imagine there would be 
a beneficial effect. You did not say anything about a negative 
effect.
    With regard to the impact of a resolution of disapproval on 
our enemies, you, I thought, expressed concern that in a war 
like this, which is in good part a test of wills, that it might 
give them hope. Clearly that is not the intention of the 
sponsors in the Senate of such a resolution, but that is part 
of what we have to ask ourselves, what are the consequences.
    I made a different kind of plea to my colleagues here, and 
I repeat it, which is now at the end of this hearing everyone 
has expressed great respect for you, appreciation that you are 
taking on this mission, and as far as I could hear everyone on 
this committee is going to support your nomination. Yet, one 
question that I do remember--I did not ask it--you were asked 
whether you thought you could be successful in your new command 
without the additional troops provided and the additional 
economic and interagency support, political support, that the 
plan offers, and you said no.
    So I worry that we are both going to confirm you and yet we 
are going to pass a resolution that says we are not in favor of 
what you need to succeed. Of course, the resolution will not 
cut off that aid, so that in a way is the reassuring part of 
it.
    That is why I ask my colleagues again to think about 
holding back a while on such resolutions, to give you a chance 
to implement what you have said, and I believe most would 
agree, is a different policy, a new approach, in the dire 
circumstances that you will find in Iraq, because, as I think 
all of us agree on this committee certainly, the consequences 
of failure really I believe will be, some would say could be, 
disastrous for the United States, for Iraq, for the Middle 
East, for the war on terrorism, and for the world economy.
    I want to just ask you two or three brief questions. The 
first is, I do want to thank you for resisting the temptation 
that some of my colleagues offered to you to offer pledges 
based on time. We will know by X date. I think the more honest 
and really responsive answer you gave was that you will report 
to us regularly and you will tell us regularly how it is going 
and what is working and what is not, and then we will make the 
judgments accordingly.
    Two brief questions about what you will find. The 
deployment plan envisions the early deployment of three Army 
brigades and the alert of three more Army brigades to follow. 
Some have asked, why not all six at once? I am not going to ask 
you that question. I am just going to ask you if when you get 
there you find that you need more than the three brigades more 
quickly, is it fair to assume that you will request that 
expedited deployment of those troops?
    General Petraeus. Sir, actually I have told the Chairman of 
the Joint Chiefs and the Secretary of Defense that we should 
flow all five brigades and the two battalions for Anbar 
Province as quickly as we can.
    Senator Lieberman. That is great. Thank you.
    The second question is similar. Obviously, you know that 
there was great concern here in Congress and among the American 
people about what was seen in the earlier stages of the 
conflict in Iraq as inadequate troop protection equipment. As 
we send in these additional 21,000 American troops, I assume we 
can count on you to let us know and your superiors know 
immediately whether enough equipment is coming along with them, 
including, of course, troop protection equipment?
    General Petraeus. Sir, I will.
    Chairman Levin. A final question. I wish that this was not 
just on C-SPAN 3, but on evening television, for the American 
people to see more broadly, because I do think, while your 
testimony is before this committee, you have answered today for 
members of the committee a lot of the questions that are in the 
minds of the American people. Look, they are disappointed with 
what they see. We are all disappointed. You are disappointed.
    So the question that I think they would ask you: Is it 
worth it to now send 21,000 more troops? Is it possible to 
succeed? But the more specific question I want to ask, because 
I hear this all the time: the Shia and Sunni Muslims have been 
fighting each other for more than a millennium. Why do we think 
we can possibly end this fighting? Why would we send more of 
our troops now, according to this new way forward, into the 
middle of that kind of violence, which is now called sectarian 
violence?
    General Petraeus. First of all, there are countries in that 
region where there are one or the other majority. Iraq itself 
does have a history of actual substantial intermarriage, not 
just getting along well together. Unfortunately, some of the 
violence, some of the developments, again in particular in the 
wake of the bombing of the Askari mosque in February of this 
past year, in a sense magnified the sectarian divides that in 
some cases were nowhere near as large. That does give me hope 
that in fact Sunni, Shia, Kurd, Yizzidi, Shabback, Turkoman, 
Christian, and all of the other elements of Iraq can, in fact, 
get along together. It will not be easy, but if we could get 
them to where they are shouting instead of shooting that would 
be a very substantial improvement.
    Senator Lieberman. Thank you very much. Godspeed.
    General Petraeus. Thank you, sir.
    Chairman Levin. General, just to clarify the issue of the 
pace of the 21,000 troop deployment.
    General Petraeus. Yes, sir.
    Chairman Levin. The National Security Adviser, Mr. Hadley, 
suggested that the pace will depend a lot on the Iraqis 
performing. Secretary Gates said there will be plenty of 
opportunity before many of the 21,000 additional troops arrive 
to evaluate, ``whether the Iraqis are fulfilling their 
commitments to us.''
    I believe it was the Chairman of the Joint Chiefs who 
talked about off-ramps, in other words turning off the 21,000 
flow somewhere in the middle, suggesting that that would depend 
upon whether the Iraqis come through with their commitments.
    You seem to take a very different approach. Do you differ 
from Secretary Gates when he says that there is going to be 
plenty of opportunity, which is a plus, before many of the 
21,000 additional troops arrive to evaluate, ``whether the 
Iraqis are fulfilling their commitments to us''?
    General Petraeus. No, sir, I do not. What I stated was that 
as the military commander who is given a mission, that is a 
different mission, to improve security in Baghdad for the 
population, what I have told the Chairman and the Secretary is 
that I would like to get those forces on the ground as quickly 
as possible. That is not, I do not think, contradictory with 
anything that they have said that is a force generation process 
issue.
    Whether I come back to them at some point and somehow have 
so much of a sense that perhaps they are not living up to their 
side of the bargain, that we want to call a time out, I think 
that is a different issue actually from what you have to plan, 
what you have to assume when you are planning, and also what a 
commander asks for to try to improve the chances of success.
    Chairman Levin. On that question of a time out, that is a 
time out that you might consider calling for under the 
circumstances? Is that right, given what you said this morning?
    General Petraeus. Yes, sir.
    Chairman Levin. I am not saying you are going to call for a 
time out.
    General Petraeus. Right, sure.
    Chairman Levin. I am saying you will consider calling for a 
time out. You want to leave that possibility open depending on 
whether the Iraqis carry out their commitments?
    General Petraeus. That is correct, sir.
    Chairman Levin. All of which points to the value of 
pressure on the Iraqis; would you agree with that?
    General Petraeus. I would, sir.
    Chairman Levin. I welcome Senator Lieberman's comments, by 
the way. The only thing I think, it is right when you get to 
the end of your suggestion about what you need to succeed, and 
those of us who disagree that a deeper military involvement is 
not what you need to succeed, it is not because we do not want 
the Iraqis to succeed or us to succeed. It is because we 
believe it is up to the Iraqis to reach a political settlement 
and only then can there be a chance of success in Iraq.
    That represents the issue, whether or not more military 
presence and involvement promote that goal of Iraqis achieving 
political settlement or not. That is where the difference is 
and, although you I think there is value in additional troops, 
that basically is a mission which has been given to you, is 
that correct?
    General Petraeus. That is correct, Mr. Chairman.
    Chairman Levin. You have not decided that is the right 
policy. You agree with the policy, but the policy decision was 
not yours; is that correct?
    General Petraeus. That is correct, Mr. Chairman.
    Chairman Levin. The letters that I referred to before 
asking for the benchmarks, the series of letters, we will make 
part of the record at this time. I want to clarify two things: 
one, that we talked about both benchmarks and timelines, 
because apparently the Iraqis have agreed on both. But whether 
that is true, whether it is just the benchmarks and not the 
timelines, whatever the Iraqis have agreed to in that regard we 
want to see.
    Two, it is not just, as the letters refer to, the 
benchmarks for a political process; it is also benchmarks which 
they have agreed to on military commitments of theirs, on 
economic, financial commitments of theirs, as well as on 
political commitments that they have not yet carried out.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. General, you have been very strong, 
steadfast in staying with us this morning. I am sure there 
would have been moments when you would have liked to have a few 
minutes off, not because the questions were too difficult for 
you to handle, but for other, more personal reasons. But in any 
event, we thank you for your sticking with us here so we could 
conclude this hearing in good order.
    We will now stand adjourned and we will do our very best to 
get your nomination to a vote of this committee just as quickly 
as we possibly can. We thank you again and we now stand 
adjourned.
    [Whereupon, at 1:36 p.m., the committee adjourned.]

    [Prepared questions submitted to LTG David H. Petraeus, 
USA, by Chairman Levin prior to the hearing with answers 
supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The integration of joint capabilities under the Goldwater-
Nichols Act has been a success. Our military forces are more 
interoperable today than they ever have been in our Nation's history. 
This achievement has been remarkable. The next step is to ensure the 
ability of the military and civilian departments to work closely 
together. Counterinsurgency warfare requires a total commitment of the 
government--both military and civilian agencies--and unity of effort is 
crucial to success.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. One of the most pressing needs is for the creation of 
interagency doctrine for the prosecution of counterinsurgency and 
stability operations. The State Department Bureau of Political-Military 
Affairs has taken initial steps toward this end. During a conference 
hosted jointly by State and the Office of the Secretary of Defense, I 
proposed several actions that could help foster greater interagency 
capacity, and I recently seconded two majors from Fort Leavenworth 
(awaiting the start of the next School of Advanced Military Studies 
course) to the State Department to work this issue. Beyond development 
of doctrine in this area, there is discussion on creating an 
interagency Center for Complex Operations, which would be an 
intellectual clearinghouse for ideas and best practices in the many 
facets of irregular warfare. This appears to be a low-cost, but high-
payoff, action that the committee should consider supporting.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Commander, Multinational Forces-Iraq (MNF-I)?
    Answer. The Commanding General (CG) of MNF-I commands forces within 
Iraq and is the senior military representative to the U.S. Chief of 
Mission. MNF-I is a Combined Joint Task Force under Operational Control 
(OPCON) to the Commander of U.S. Central Command (CENTCOM). MNF-I 
conducts operations in support of the Government of Iraq, U.S. Mission 
and other international organizations. The CG exercises Tactical 
Control (TACON) of non-U.S. Coalition Forces and OPCON of the 
Multinational Corps-Iraq (MNC-I) and the Multinational Security 
Transition Command-Iraq (MNSTC-I). This is a strategic level command.
    Question. What are the differences between the duties and functions 
of the Commander, MNF-I and the Commander, MNC-I?
    Answer. The Commanding General of MNC-I is the senior operational 
level commander in Iraq. He directly commands forces conducting 
operations to restore order and security in Iraq.
    The commander of the MNF-I has a wider responsibility which covers 
strategic issues and the political/military interface, working with the 
U.S. Ambassador and Government of Iraq to integrate all aspects of the 
campaign such as security, governance, economic development, 
communication, and transition.
    Question. What background and experience, including joint duty 
assignments, do you possess that you believe qualify you to perform 
these duties?
    Answer. I believe that I have a good background for the duties of 
MNF-I CG, if confirmed. First, I have, of course, served in Iraq for 
some 2\1/3\ years and have a good understanding of the country, its 
government, and many of its leaders from all factions. Second, I have 
had a number of joint assignments at relatively high level--as a 
temporary duty Special Assistant to Commander in Chief, Allied Forces 
Southern Europe (North Atlantic Treaty Organization (NATO)), as 
Military Assistant to the Supreme Allied Command, Europe (NATO), as 
Operations Chief of the United Nations (UN) Force in Haiti, as 
Executive Assistant to the Chairman, Joint Chiefs of Staff (CJCS), as 
Assistant Chief of Staff, Operations of SFOR in Bosnia, and, of course, 
as the Commander of MNSTC-I and the NATO Training Mission in Iraq. 
Third, I believe I have a reasonably solid academic/intellectual 
background, having studied, as well as served in, major combat 
operations, counterinsurgency operations, peacekeeping operations, and 
peace enforcement operations. Most recently, in my current position, I 
oversaw the development of the new Army/Marine Corps manual on 
counterinsurgency and also oversaw changes to other Army doctrinal 
manuals, our leader development programs, our combat training centers, 
and a variety of other activities that support the preparation of our 
leaders and units for deployment to Iraq. Finally, I believe I 
understand the requirements of strategic-level leadership, which is 
what, after all, MNF-I is all about.
    Question. Do you believe that there are any steps that you need to 
take to enhance your ability to perform the duties of the Commander, 
MNF-I?
    Answer. Yes, and I will complete them before deploying, if 
confirmed. In particular, I need to establish initial personal 
relationships with the members of the JCS I don't know (I have done 
this with the Vice CJCS and CJCS and key Joint Staff members already); 
get briefings on the interagency's support for the important ``non-
kinetic'' aspects of the new way ahead; meet again with the Secretary 
of Defense and President--and certain interagency leaders; and discuss 
Iraq with several leaders of the intelligence community with whom I 
have not yet been able to meet. The most important, frankly, is getting 
an understanding of the level of interagency support that will be 
forthcoming. That will obviously be key to the comprehensive approach 
that is essential in Iraq.

                    MAJOR CHALLENGES AND PRIORITIES

    Question. In your view, what are the major challenges that will 
confront the next Commander, MNF-I?
    Answer. There are many challenges in Iraq, but I would point out 
four of particular concern. The top challenge is providing the security 
necessary to reduce the cycle of violence in Iraq today. This will be a 
difficult mission and time is not on our side. We must focus on 
population security, particularly in Baghdad, to give the Iraqi 
government the breathing space it needs to become more effective. The 
second challenge is continuing the development of capable Iraqi 
security forces (ISFs), relatively free of ethnic and sectarian bias. 
The Iraqi Army has made much progress, but is uneven, and the police 
remain a challenge. The third challenge is the integration of the 
interagency effort to ensure that progress is made along all lines of 
operation--not just security, but economic, governance, and the rule of 
law as well. That is related to the fourth challenge, and that is the 
lack of capacity of the Iraqi government. Iraq has enormous natural 
resources and potential wealth. However, to take advantage of its 
blessings, not only must security be improved, but critical national 
issues must be resolved by the Iraqis, on issues such as national 
reconciliation, the devolution of power below Baghdad, the distribution 
of oil wealth, and so on. Only through unity of effort of all--
coalition and Iraqi, military and civilian--can we bring the full 
weight of our effort to bear on the difficult situation in Iraq.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. Population security is the top priority. We must clear and 
hold the neighborhoods of Baghdad to break the cycle of violence that 
is preventing political progress in Iraq. We can only do this by 
establishing persistent presence--coalition, as well as Iraqi--in Iraqi 
neighborhoods. I plan to ensure that some of our forces locate in the 
neighborhoods they protect and that they fight closely linked with 
their Iraqi counterparts--with the Iraqis in the lead whenever 
possible--to secure the population.
    I will also work to improve the capability of the ISFs by 
augmenting the size and capabilities of the embedded transition teams 
that advise these forces. Beyond this, I will enhance the partnership 
between U.S. units and Iraqi units, which increases the operating 
capabilities of both forces. The Iraqi units have greater cultural 
awareness and linguistic capabilities, while U.S. forces bring greater 
military capabilities to the battlefield. Iraqi and U.S. elements are 
more effective at population security and preparing for gradual 
transition when working together.
    To improve interagency cooperation, I applaud the recent efforts to 
embed the Provincial Reconstruction Teams (PRTs) in the Brigade Combat 
Team (BCT) headquarters (HQs) for those provinces in which BCTs are the 
senior HQs, or in the division headquarters in areas where they are the 
senior HQs in a province. This will provide a synergy that will 
significantly enhance our ability to conduct stability and 
reconstruction operations in Iraq.
    I will do all that I can, in partnership with the Ambassador, to 
ensure that our interagency is doing all possible to help develop 
capacity in the Iraqi government and to enable it to come to grips with 
the tough issues it must resolve.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Commander, MNF-I?
    Answer. As the military commander, my broad priorities would 
support the development of an Iraqi state that is a stable, reasonably 
representative democracy that respects the rights of all Iraqis and can 
provide for its own security, with Iraqi security institutions that act 
professionally and according to the interests of all Iraqi people. My 
more immediate priorities would address the challenges that MNF-I faces 
today--security of the population to enable political progress, 
enhancement of ISFs capabilities to provide the Iraqi government a 
monopoly on the use of force, support for effective interagency 
cooperation to bring the full weight of our national resources to bear 
on the problem, and assistance to interagency elements as they work to 
help the Iraqi government build capacity and resolve the tough issues 
it confronts. Other priorities would include countering the threats 
posed by Iranian and Syrian meddling in Iraq, and the continued mission 
of dismantling terrorist networks and killing or capturing those who 
refuse to accept a unified, stable Iraq.

                            LESSONS LEARNED

    Question. What were the major lessons you learned in your previous 
Iraq tours, both leading a division and leading the effort to 
establish, train, and equip security forces, that are the most 
applicable to the duties you are about to assume?
    Answer. Perhaps the best way to answer this is to attach an article 
I wrote upon returning from Iraq after my last tour there. In it, I 
laid out the lessons I learned in the form of 14 observations, noted 
below; they are still valid, though they obviously require nuanced 
application depending on the specific situation in each case (which is 
explained in the article). The article attached explains them in 
detail.

        1. ``Do not try to do too much with your own hands.''
        2. Act quickly, because every Army of liberation has a half-
        life.
        3. Money is ammunition.
        4. Increasing the number of stakeholders is critical to 
        success.
        5. Analyze ``costs and benefits'' before each operation.
        6. Intelligence is the key to success.
        7. Everyone must do nation-building.
        8. Help build institutions, not just units.
        9. Cultural awareness is a force multiplier.
        10. Success in a counterinsurgency requires more than just 
        military operations.
        11. Ultimate success depends on local leaders.
        12. Remember the strategic corporals and strategic lieutenants.
        13. There is no substitute for flexible, adaptable leaders.
        14. A leader's most important task is to set the right tone.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Question. During your prior combat tours of duty in Iraq, were 
there any incidents of which you were aware within your command of 
alleged detainee abuse or abuse of civilians?
    Answer. There was one specific case of alleged detainee abuse in 
the 101st Airborne that was brought to my level. It was a few months 
into our time in Mosul (and prompted us to establish clear standards 
relatively early on), and did not involve death or serious injury. I 
took action in that case, which included a general officer letter of 
reprimand and relief of the senior individual involved and lesser 
action against others. We very quickly then issued clear instructions 
to all elements in the 101st Airborne Division Task Force that all 
detainees would be treated in accordance with the Geneva Convention, 
ensured refresher education in what that meant, began a process of 
inspecting all detention facilities in the Division at least weekly, 
and started a process of having the Red Cross representative in the 
area and Ninevah Province Council members (including an Imam) visit our 
facilities on a regular basis, as well.
    There was also at least one case of mistreatment of a civilian that 
I recall--in which a small element improperly confiscated a vehicle 
from a local citizen who was stopped at a checkpoint, with the element 
leader then not being forthright about the incident during subsequent 
inquiries. (The civilian was not physically mistreated.) We formally 
investigated, took nonjudicial action under UCMJ against those 
involved, and compensated the citizen.
    There were numerous other cases of damage incidental to operations 
for which we compensated the citizens affected.
    As the MSNTC-I Commander, we did not operate detention facilities; 
however, some of the Iraqi units we advised did do that, and we had 
serious challenges in a few of those in the summer of 2005 before I 
left Iraq. In each case, we documented possible cases of mistreatment, 
shared the evidence with the Minister of Interior and MNF-I HQs, helped 
the Minister and respective Iraqi units conduct remedial training, and, 
in at least one case, withdrew all financial/equipment/advisor support 
for an element (in that case due to actions by several leaders of the 
Baghdad Major Crimes unit) until individuals were removed and/or 
disciplined.
    Question. If so, please explain the circumstances and describe the 
actions that you took in response to these incidents?
    Answer. Answered above.

                             U.S. MISTAKES

    Question. What do you consider to be the most significant mistakes 
the U.S. has made to date in Iraq?
    Answer. First, there were a number of assumptions and assessments 
that did not bear out. Prominent among them was the assumption that 
Iraqis would remain in their barracks and ministry facilities and 
resume their functions as soon as interim governmental structures were 
in place. That obviously did not transpire. The assessment of the Iraqi 
infrastructure did not capture how fragile and abysmally maintained it 
was (and this challenge, of course, was compounded by looting). 
Additionally, although most Iraqis did, in fact, greet us as liberators 
(and that was true even in most Sunni Arab areas), there was an 
underestimation of the degree of resistance that would develop as, 
inevitably, a Shiite majority government began to emerge and the Sunni 
Arabs, especially, the Saddamists, realized that the days of their 
dominating Iraq were over. Sunni Arab resistance was also fueled by 
other actions noted below.
    Beyond that, as noted recently by President Bush, there were a 
number of situations that did not develop as was envisioned:

        <bullet> There was the feeling that elections would enhance the 
        Iraqi sense of nationalism. Instead, the elections hardened 
        sectarian positions as Iraqis voted largely based on ethnic and 
        sectarian group identity.
        <bullet> There was an underestimation of the security 
        challenges in Iraq, particularly in 2006 in the wake of the 
        bombing of the mosque in Samara, coupled with an over-
        estimation of our ability to create new security institutions 
        following the disbandment of the ISFs--which was not helped by 
        the planning issues described below.
        <bullet> It repeatedly took us time to recognize changes in the 
        security environment and to react to them. What began as an 
        insurgency has morphed into a conflict that includes insurgent 
        attacks, terrorism, sectarian violence, and violent crime. Our 
        responses have had to continue to evolve in response, but that 
        has not always been easy.

    A number of mistakes were made by both political and military 
leaders during the course of Operation Iraqi Freedom:

        <bullet> The very slow (if that) execution of the 
        reconciliation component of de-Baathification left tens of 
        thousands of former Baath Party members (many of them Sunni 
        Arabs, but also some Shiite) feeling that they had no future 
        opportunities in, or reason to support, the new Iraq. To be 
        fair to CPA, Ambassador Bremer intended to execute 
        reconciliation (or exceptions to the de-Baathification order) 
        and gave me permission, e.g., to do so on a trial basis in 
        Ninevah Province; however, when we submitted the results of the 
        reconciliation commission conducted for Mosul University and 
        subsequent requests for exception generated by Iraqi processes 
        with judicial oversight, no action was taken on them by the de-
        Baathification committee in Baghdad. As realization set in 
        among those affected that there was to be no reconciliation, we 
        could feel support for the new Iraq ebbing in Sunni Arab 
        majority areas.
        <bullet> Disbanding the Iraqi army (which was, to be sure, an 
        army that Iraq did not need in the long-term as it had vastly 
        more senior officers than were remotely required and was more 
        of a jobs program than a competent military force) without 
        simultaneously announcing a stipend and pension program for 
        those in the Army, the future plan for Iraq's defense forces, 
        and provisions for joining those forces undoubtedly created 
        tens of thousands of former soldiers and officers who were 
        angry, feeling disrespected, and worried about how they would 
        feed their families. (The stipend plan was eventually announced 
        some 5 weeks after the disestablishment was announced, but it 
        did not cover senior officers, who remained, therefore, 
        influential critics of the new Iraq.) This action likely 
        fueled, at least in part, the early growth of the insurgency 
        and anti-coalition feeling.
        <bullet> We took too long to recognize the growing insurgency 
        and to take steps to counter it, though we did eventually come 
        to grips with it.
        <bullet> We took too long to develop the concepts and 
        structures needed to build effective ISFs to assist in 
        providing security to the Iraqi people.
        <bullet> Misconduct at Abu Gharyb and in other less 
        sensational, but still damaging cases, inflamed the insurgency 
        and damaged the credibility of coalition forces in Iraq, in the 
        region, and around the world.
        <bullet> We obviously had inadequate plans, concepts, 
        organizations, resources, and policies for the conduct of Phase 
        IV (stability and reconstruction) operations; consequently, we 
        were slow to move into Phase IV operations.
        <bullet> We had, for the first 15 months or more in Iraq, an 
        inadequate military structure. With hindsight, it is clear that 
        it took too long to transform V Corps HQs into Commander, Joint 
        Task Force-7 (CJTF-7) HQs, and that even when we had CJTF-7 
        HQs, it was not capable of looking both up and down (i.e. 
        performing both political-military/strategic functions and 
        serving as the senior operational headquarters for 
        counterinsurgency and stability operations). Moreover, it is 
        clear that we should have built what eventually became MNSTC-I 
        HQs and the TF-34 HQs (which oversees detainee/interrogation 
        operations) much sooner, along with the other organizations 
        that were eventually established (e.g., the Gulf Region Corps 
        of Engineer HQs).
        <bullet> Although not a problem in the 101st Airborne Division 
        area of responsibility (AOR) during my time as 101st commander, 
        it is clear that in certain other AORs there were more tasks 
        than troops--especially in Anbar Province for at least the 
        first year and likely in other areas as well.
        <bullet> Finally, the strategy pursued in the wake of the 
        bombing of the Al Askariya Mosque in Samarra in February 2006 
        was unable to arrest the spiraling violence and rise of harmful 
        sectarian activities. Repeated operations in Baghdad, in 
        particular, to clear, hold, and build did not prove durable due 
        to lack of sufficient Iraqi and coalition forces for the hold 
        phase of the operations.

    Question. Which of these mistakes, if any, are still having an 
impact, with which you will have to deal, if confirmed?
    Answer. We continue to feel the effects of many of the issues 
stated above. If confirmed, I intend to work with the U.S. Ambassador 
to gain traction on a number of levels--security for the Iraqi people, 
establishment of effective local governance and economic development 
that will create stakeholders in the new Iraq, reconciliation, the 
continued establishment of effective ISFs, and establishment of rule of 
law to ensure effective justice to all Iraqis.

                                 MOSUL

    Question. When you commanded your division in Mosul in 2003 the 
city appeared to be relatively quiet and stable. That changed 
considerably in 2004 and later.
    Why do you believe that happened?
    Answer. The situation in Mosul deteriorated significantly about 9 
months after the 101st Airborne Division departed from Iraq. There were 
several reasons for this development. First, the insurgents made a 
concerted effort to open a new front as it became clear that the 
Coalition was going to conduct operations to clear Fallujah in the fall 
of 2004. Second, the Sunni Arab governor of Ninevah Province was 
assassinated in late June 2004 (the night of the transition of 
sovereignty, while on the road to Baghdad, south of Ninevah Province). 
In the fractious political process that followed, many of the Sunni 
Arabs left the provincial council in protest over the way the 
replacement governor was selected. This left a Sunni Arab majority 
province without adequate Sunni Arab representation in the provincial 
council. Undoubtedly, this led to some of them and their followers no 
longer supporting the new Iraq and some others likely tacitly or 
actively supporting the insurgents as they sought to put roots down in 
Ninevah and began a concerted campaign of intimidation of Sunni Arabs 
who supported the new Iraq. Third, many level-4 Baath Party members 
lost hope over time that they would ever have a role in the new Iraq 
due to stalling over reconciliation in Baghdad, despite the special 
exemption given to the 101st Airborne Division by Ambassador Bremer in 
the late summer of 2003 to conduct a special reconciliation process in 
Ninevah Province and Ambassador Bremer's encouragement to all to use 
the exception process in the CPA order. Finally, the forces that 
replaced the 101st Airborne Division--called Task Force Olympia--were 
only a little over one-third the size of the 101st Airborne (though 
they started out about half our size), had many fewer helicopters and 
other enablers, and one of their battalions was subsequently taken 
frequently to be used as the CJTF-7 Reserve. At the time TF Olympia 
replaced us in late January/early February, I believed its forces would 
be sufficient to secure Ninevah Province due to the presence of the 
tens of thousands of ISFs we had recruited, trained, and equipped, and 
with whom we operated closely on a daily basis. That was borne out by 
the Iraqis' performance during the uprisings in April 2004 when Mosul 
was one of the few places in Iraq where Iraqi forces did well. Over 
time, however, the Iraqi forces slowly deteriorated following the 
Governor's assassination, as the insurgents mounted a brutal campaign 
of intimidation. Ultimately, that degraded their effectiveness and 
began a spiral downward that didn't end until during the Fallujah 
operation in November 2004, during which a concerted attack in Mosul 
revealed the police to be completely intimidated and ineffective, and 
overwhelmed many of the Iraqi Army elements, as well. (Regretably, 
although both BG Ham and I repeatedly requested replacement of the 
once-aggressive Police Chief in the fall of 2004, the Minister of 
Interior was never willing to take that action, despite clear signs 
that the Chief and his family had been severely attacked and 
intimidated.) Finally, and perhaps most importantly, Task Force 
Olympia's HQs lacked the same robust intelligence structure that the 
101st Airborne Division possessed, which proved a serious shortfall in 
the intelligence-intensive business of counterinsurgency warfare. Where 
the 101st Airborne had largely been able to generate the precise 
intelligence that helped us tear out the ``roots'' of the insurgents 
almost as fast as they were established, this proved more challenging, 
particularly over time, for Task Force Olympia.

              ROLE IN DEVELOPMENT OF THE NEW IRAQ STRATEGY

    Question. What role, if any, did you play in the development of the 
new Iraq strategy recently announced by the President?
    Answer. I met with the Secretary of Defense a couple of days after 
he took office and before he left for his first trip to Iraq, and we 
discussed the situation there during that meeting. We subsequently 
talked after his trip, as well. I also talked to the CJCS several times 
during this period, noting that a population security emphasis, in 
Baghdad in particular, was necessary to help the Iraqis gain the time/
space for the tough decisions they faced and discussing the general 
force levels that were likely to be required. As the strategy was 
refined, I talked on several occasions to LTG Ray Odierno to confirm 
that his troop-to-task analysis required the force levels that are part 
of the new strategy, and I relayed my support for those levels to the 
CJCS and the Secretary. I also supported the additional emphasis on the 
advisory effort and the additional resources for the reconstruction 
effort (both in terms of funding and personnel for PRTs and 
governmental ministry capacity development).

                       IRAQI ARMY REINFORCEMENTS

    Question. The Iraqi government has agreed to send an additional 
three Iraqi Army brigades to Baghdad, two of which will apparently be 
predominately Kurdish.
    Do you know why Kurdish units were selected?
    Answer. Iraqi Ground Forces Command (IGFC) and MNC-I made the 
decision to deploy the two predominantly Kurdish battalions to support 
the Baghdad Security Plan primarily based upon the low threat levels in 
their original assigned areas of responsibility, the readiness levels 
of the units involved during their time as elements of the IGFC, and 
the desire to involve these relatively well-trained units in the effort 
to establish security in the capital city.
    Question. Do you believe that Kurdish units will be more effective 
than other units in enhancing security in Baghdad? Why?
    Answer. I have confidence in the expected performance of these 
units, though there are likely to be challenges due to language issues 
(few of their enlisted soldiers speak Arabic) and, possibly, due to 
operating away from predominantly Kurdish areas for the first time 
(though some of the battalions did serve in mixed-ethnic areas in the 
vicinity of Mosul). In considering other factors, there has been little 
in the way of corruption or other sectarian issues reported in these 
units. Additionally, because of their combat experience and 
predominantly Kurdish soldiers, there tends to be a higher level of 
unit cohesion in these formations. Because of their home locations, 
there is a lower likelihood these units will have issues with 
infiltration by anti-governmental entities. Finally, commanders 
involved in training these units, as well as their coalition advisors, 
assess that they are unlikely to be biased when conducting operations 
in the locations to which they are being assigned.
    Question. How do you believe Sunni or Shiite Arabs will react to 
Kurdish troops in their neighborhoods?
    Answer. I believe that in the end all parties will accept the 
presence of these forces in an effort to secure Baghdad. Initial 
feedback from a Lieutenant Colonel on the ground with whom I correspond 
is that one of the first battalions to arrive has been welcomed as it 
has brought improved security--though it is obviously still very early 
on in this effort.
    MNF-I considered several aspects prior to making the decision to 
use these Kurdish-based forces. For example, MNF-I studied whether both 
the Sunni and Shiite leaders would consider this an attempt by Kurdish 
entities to expand their influence. While there have been some 
statements by radical Shiite leaders and some reservations offered by 
Sunnis, the assessment is that the people of Baghdad will adopt a wait-
and-see position. In the end, if security is enhanced, all parties will 
benefit and likely will be grateful.
    Question. How do you believe the Mahdi Army will react to Kurdish 
troops entering Sadr City?
    Answer. I believe the reaction in Sadr City to any security forces, 
not just Kurdish ones (and it is not clear that Kurdish forces will 
operate in Sadr City), will vary depending upon the perception of the 
mission, size, and composition of forces, duration of operations, and 
response of key Shiite leaders.
    This is, however, a very dynamic period, and actions taken in Sadr 
City will have to be carefully considered. While it is possible Muqtada 
al-Sadr will respond with harsh rhetoric that could escalate into 
violence, there is also the possibility that political engagement by 
Prime Minister Nouri al-Maliki will result in a tense, but calm entry 
of Iraqi forces into Sadr City. As a leader within the Shiite 
community, Muqtada al-Sadr must demonstrate the willingness to act 
constitutionally, responsibly, and within the rule of law, regardless 
of what kind of ISFs are involved. Having said this, again, any actions 
involving Sadr City will be very sensitive and will require 
considerable thought and preparation.
    Question. What is your understanding of how Iraqi brigades which 
are predominantly Sunni or Shiite will be deployed--i.e., among their 
own sect or the other?
    Answer. ISFs will be assigned areas of operations throughout 
Baghdad without regard to sectarian composition of the units. Brigades 
of the 6th and 9th Iraqi Divisions, each of which have a mix of Shiite 
and Sunni personnel (though predominantly Shiite in their makeup) will 
be employed in all nine administrative districts of the city. It is 
true that some districts in the city are predominantly Shiite, while 
others are predominantly Sunni. However, U.S. Army battalions will be 
partnered with these Iraqi brigades to reinforce the practice that all 
security forces operate in a professional, disciplined, and ethical 
manner, and in accordance with the rule of law, international 
humanitarian norms, and recognized international standards for 
enforcement and protection of human rights.
    Question. What are the implications either way?
    Answer. It is important to ensure no particular sect feels 
persecuted by the deployment of any ISF in their neighborhood. The 
partnering of a U.S. battalion with each ISF brigade will ensure that 
sectarian divisions and mistrust are kept to a minimum.

                          COMMAND AND CONTROL

    Question. What do you understand to be the command and control 
relationships between American and Iraqi forces in the new Baghdad 
security plan?
    Answer. This is an exceedingly important issue. Getting the 
relationship between our forces and the ISFs right is critical to 
operating together. At its simplest, U.S. commanders will command and 
retain OPCON of U.S. forces; Iraqi commanders will command Iraqi forces 
and exercise OPCON over them once transitioned from the tactical 
control of U.S. forces (this has taken place for the 6th Division and 
in the case of many other Iraqi units in recent months). If confirmed, 
I intend to ensure that there is very close cooperation between U.S. 
and Iraqi headquarters to ensure unity of effort, careful coordination 
of operations, and clear knowledge of what each force is doing. Of 
necessity, this will include Iraqi and U.S. Special Operations Forces 
and Police Forces as well. As I understand it, the Baghdad plan is to 
be an Iraqi Plan, devised by the Iraqis in consultation with, and 
supported by, MNF-I and MNC-I, and U.S. forces, under the command of 
U.S. commanders, will act in support of the Iraqi effort to establish 
security in Baghdad.
    Question. Do you have any concerns?
    Answer. Yes. MNF-I and MNC-I will need to carefully work out 
liaison arrangements, colocation of command posts, terms of reference 
that delineate respective responsibilities for various combat, combat 
support, and combat service support activities, communications to 
support all of this, and so forth. Having said this, coalition forces 
have been working with ISFs for some time and have developed an 
understanding of the relationships involved, and they will use that 
experience to inform the actions to be taken in this case.

                        CONFRONTING THE MILITIAS

    Question. Based on your knowledge, is the Iraqi government taking 
the steps it must to confront and control the militias?
    Answer. Militias and armed groups are a challenge with which MNF-I 
and the Iraqi government must contend. One reason the Iraqi government 
has not confronted militias in a meaningful way is that, regrettably, 
they fill a security need. Another reason is that some political 
parties derive their political strength from their militias, which 
provide both security and allow for the provision of basic services to 
the people.
    Article 9 of the Iraqi Constitution prohibits militias and 
stipulates that ``the Iraqi armed forces and security services will be 
composed of the components of the Iraqi people with due consideration 
given to their balance and representation without discrimination or 
exclusion. They shall be subject to the control of the civilian 
authority, shall defend Iraq, shall not be used as an instrument to 
oppress the Iraqi people, shall not interfere in political affairs, and 
shall have no role in the transfer of authority.'' In short, the 
security forces of Iraq must be professional and apolitical, and they 
must have a monopoly on the legitimate use of force.
    Once ISFs, backed by coalition forces, gain control of Baghdad and 
provide security to the people, the need for militias to protect local 
areas will cease to provide a justification for their existence. The 
Iraqi government can then work to execute a comprehensive disarmament, 
disbandment, and reintegration (DDR) program. Recent reports indicate 
that Prime Minister Maliki understands the need to deal with the 
militias.
    Question. What role would you expect to play on this issue, if 
confirmed?
    Answer. Iraqi government intermediaries, coalition leaders, and 
U.S. Embassy Baghdad personnel are involved in discussions to provide 
opportunities for militia groups to enter into a DDR process. If 
confirmed, I would support and be involved in these efforts.
    Question. Under what circumstances, if any, would you recommend 
that American troops enter Sadr City?
    Answer. American troops enter Sadr City regularly in response to 
operational needs. These operations are likely to continue. As the ISFs 
transition into a leading role, I would expect to see a more prominent 
ISF presence in Sadr City and, as part of that, it is likely American 
troops will also be present, but principally in a supporting role and 
to ensure full situational awareness of the actions of the Iraqi 
forces.
    Question. In your judgment, how effective will the addition of more 
U.S. troops be in securing Baghdad if Prime Minister Maliki continues 
to allow militias to exist and operate?
    Answer. Prime Minister Maliki has indicated a willingness to deal 
with militias and this effort will be of central importance in securing 
Baghdad. Additional U.S. troops will be important in the overall effort 
by providing the necessary capacity to continue with clearing insurgent 
forces from contested areas while also partnering with Iraqi Army and 
Iraqi Police in order to bolster their capability to prevent sectarian 
violence, whether on the part of militias, terrorists, or insurgent 
groups.

                       COUNTERINSURGENCY DOCTRINE

    Question. According to the new counterinsurgency manual, ``20 
(soldiers or police forces) per 1,000 residents'' is often considered 
the minimum troop density required for effective counterinsurgency 
operations. Baghdad alone, according to doctrine, requires a force of 
120,000-130,000 personnel to meet the minimum requirement. However, 
when the planned increase in U.S. and Iraqi forces is complete, Baghdad 
would only have about 80,000 security forces.
    Do you believe that 80,000 U.S. and Iraqi troops is sufficient and 
if so, why? What is your understanding of the status and adequacy of 
the risk assessment and mitigation plan associated with this deviation 
from doctrine?
    Answer. Forces currently in or moving to Baghdad should be 
sufficient to conduct effective counterinsurgency operations given the 
anticipated political-military situation and planned phased operations.
    Answer. The recommended force ratio is a ``rule of thumb,'' 
distilled for simplicity's sake from numerous complex cases of 
counterinsurgency operations. These cases may differ significantly in 
terms of geography, urbanization, or enemy strength.
    The counterinsurgency doctrine clearly states that host nation 
police and army forces are a key part of the equation, as are special 
operating forces and other security elements. Baghdad is a city of 
roughly 6 million people, so a 1:50 ratio of security forces to 
population would be equal to roughly 120,000 counterinsurgents. Iraqi 
Army, Police, and Special Operations Forces, together with the U.S. 
forces currently on the ground or deploying to Baghdad in the months 
ahead, total approximately 85,000--though, to be sure, not all of those 
are of the same levels of effectiveness, and some of the police 
undoubtedly are of limited effectiveness. However, we do not 
necessarily have to secure every part of Baghdad at once--this can be 
done in stages--and will have to be done that way given the way the 
forces are expected to flow into Iraq. Beyond that, tens of thousands 
of ministry security forces and tens of thousands of civilian (often 
third country) contracted guard forces protect key sites in Baghdad 
(including, for example, the U.S. Embassy, MNSTC-I HQs, the Ministry of 
Oil, etc.) that MNF-I and the Iraqi government would otherwise have to 
detail soldiers or police to protect. These forces, again, number in 
the tens of thousands--and although by no means all are of high 
capability and some are undoubtedly compromised, they do secure 
hundreds of sites that otherwise would require coalition or Iraqi 
military or police forces. Thus, with the addition of all five U.S. 
brigades under orders to reinforce Baghdad and the ISFs either in 
Baghdad or headed to the city, there should be sufficient military 
forces available to achieve our objective of securing Baghdad.

                       LENGTH OF IRAQI INSURGENCY

    Question. General Casey has said that 20th century 
counterinsurgency efforts typically lasted 9 years.
    Do you believe the counterinsurgency campaign in Iraq could last as 
long as 9 years, or even longer?
    Answer. I agree with General Casey that the counterinsurgency 
campaign in Iraq will continue for some time, but its duration will 
depend on a variety of factors that about which it is very difficult to 
make judgments. What I am clear about, however, is that the Government 
of Iraq must ultimately win this fight, with coalition forces in a 
supporting role. Thus, while it is possible that the counterinsurgency 
campaign in Iraq could, indeed, last 9 years or more, that should not 
be taken to imply that U.S. forces would be involved in substantial 
numbers for the duration of that period.

                         COMBAT SERVICE SUPPORT

    Question. With the expected increase of U.S. troop levels in Iraq 
by over 20,000, do you believe there is sufficient combat service 
support in place or will that have to be augmented as well?
    Answer. Generally, BCTs have their own combat service support units 
to sustain their soldiers and equipment; however, I am sure that one of 
the tasks being undertaken by MNC-I in recent weeks has been 
determination of requirements for any additional combat service support 
elements above brigade level. This will be an area on which I will 
focus following arrival in Iraq, if I am confirmed. Should additional 
so-called enablers be needed, I will request them.
    Question. If so, by how much?
    Answer. MNF-I reports that it has a mature theater base in place 
and does not anticipate a large requirement for augmentation of combat 
service support capabilities.
    Question. Do you see any problems with the extent of reliance of 
U.S. forces in Iraq on contractor support?
    Answer. No. The Army has always benefited from contracted non-
military support in one form or another, though that reliance has grown 
substantially in recent years. Contractors allow the military a great 
deal of flexibility to meet sustainment and life support requirements; 
they also help with security in some cases. They must be well-
integrated, but over time MNF-I has developed mechanisms to ensure 
synchronization of contractor support and military activities.

                              SUSTAINMENT

    Question. Based on your knowledge of the Army and its state of 
readiness, how long do you believe the increased troop levels and 
operations tempo can be sustained?
    Answer. My personal sense is that the Army is stretched and is 
straining; however, the Army is making plans to sustain increased troop 
levels should that be required. Nonetheless, the strain on the Active 
and Reserve components is clear. Soldiers in some units are returning 
to Iraq in a year or less, and that is obviously difficult for them and 
their families, and it makes preparation of units challenging as well. 
My own family is well-acquainted with this challenge, as my return to 
Iraq, if confirmed, will be my fourth year-or-longer deployment since 
2001. Reset of equipment is also a challenge--though additional funds 
received recently should help the Army considerably to meet the demand, 
though it is likely to take some time to ramp up the depots fully. 
Having said that, as MNF-I commander, it would be beyond my brief to 
determine the overall health of the Army and Marine Corps--though it 
would be something about which I would be concerned. It would be my job 
to determine the troops and resources required to accomplish the 
mission in Iraq, and to inform the CENTCOM commander and Secretary of 
Defense of those requirements. It is more appropriate for the Joint 
Staff and the Services to determine how long we can sustain a surge. I 
am encouraged, however, by Secretary of Defense Gates' announcement 
that the end strength of our Army and Marine Corps will be increased. 
Clearly, the conflict in Iraq has been hard on our ground forces, and I 
support the Secretary's efforts to ensure we have the forces needed we 
need for what are frequently very people-intensive operations.

        STATE OF TRAINING AND EQUIPPING OF IRAQI SECURITY FORCES

    Question. What is your understanding of the state of training and 
equipping of ISFs?
    Answer. My understanding is that, with some exceptions, the Iraqi 
Objective Counterinsurgency (COIN) Force and Iraqi Objective Civil 
Security Force (totaling approximately 325,000 personnel) were issued 
100 percent of their pacing items of equipment (i.e. their most 
important items) and that 100 percent of their personnel were trained. 
The exceptions are for the remaining portions of the Navy and the Air 
Force and approximately 2,000 support troops, all of which have 
significantly longer training timelines and specialized training 
requirements. The Objective COIN Force units do, however, face 
challenges in sufficient fill of leaders, who take a long time to 
develop, and in development of higher-level staff skills and 
intelligence elements, which also take time to develop. The Iraqi 
government is addressing these shortfalls through a combination of 
former commissioned and noncommissioned officer (NCO) recalls and 
prospective policies to accelerate promotion to corporal and sergeant 
for recruits with requisite levels of civilian education. The ISFs have 
also experienced attrition due to combat losses and absences over the 
last 18 months. To address this attrition, MNSTC-I and the Iraqi 
government are generating some 30,000 replacements, 18,000 of which 
will address the attrition that has occurred over the last year and 
half, and another 12,000 to bring these units to 110 percent to address 
the effects of Iraqi leave policies and to provide some personnel 
flexibility to unit commanders. Over 6,500 of these soldiers have 
graduated and joined the force and the second cycle of almost 8,000 
will graduate shortly.
    Question. What concerns do you have about the ability of those 
units to participate in the implementation of the new Baghdad security 
plan?
    Answer. Iraqi units, at all levels, continue to perform well when 
partnered with coalition forces. An immature logistics system, a 
shortage of mid-grade leadership, and the ultimate loyalty of select 
units/leaders remain my primary concerns. These concerns are currently 
being addressed through continued development of the ISF logistical 
structure, coalition force emergency logistical support, partner 
relationships between Iraqi and coalition force units (which are being 
strengthened), embedding of Transition (Advisor) Teams in Iraqi units 
down to at least the battalion level, and a variety of actions to 
foster loyalty and professionalism like a soldier's creed, oaths of 
office, a Center for Ethics and Leadership, the Iraqi Military Academy, 
the Staff Colleges, and so on.

                            FORCE PROTECTION

    Question. The new Baghdad security plan apparently envisions 
American units being colocated with Iraqi units spread out over 
approximately 30 mini-bases throughout Baghdad.
    In general, how could you, as Commander, MNF-I, accommodate and 
protect those forces and the forces which would have to resupply them 
on a daily basis?
    Answer. As explained to me, under the Baghdad Security Plan, 
coalition forces will establish Joint Security Stations (JSSs) with the 
Iraqi Army, Iraqi Police, and the Iraqi National Police. The stations 
will be strategically positioned throughout the city to accommodate 
dispersed, joint patrols, and to provide CENTCOM and control hubs that 
ultimately feed back into the Baghdad Security Command. The 
establishment of JSSs will include enhancing force protection and 
developing essential sustainment and life support. Many of the JSSs are 
located at existing Iraqi Police Stations, but will require 
vulnerability assessments prior to occupation by coalition forces. 
Based on these assessments the necessary force protection enhancements 
will be completed to mitigate the risks of attack. Force protection 
enhancements will include improvements such as entry control points, 
external barriers to redirect traffic flows and/or reinforce 
perimeters, increased protection from indirect fires, and guard posts/
towers where required. Additionally, robust Quick Reaction Forces, as 
well as redundant and secure communications with parent Forward 
Operating Bases and with coalition patrols operating in the area, will 
enhance the force protection posture of each JSS.
    Sustainment of our forces will be just as critical as their 
protection. Coalition forces patrolling from JSSs will have adequate 
levels of food, fuel, water, medical supplies, and ammunition on hand 
to preserve their combat capability. The JSSs will be resupplied as the 
forces rotate into and out of the primary Forward Operating Bases 
(FBOs), rather than through daily resupply convoys. Essentially, the 
forces operating out of a JSS will be self-sustaining for their period 
of operations, with replacements arriving with their own requisite 
supplies as forces rotate. The basic, enduring life support packages at 
each JSS might include tents, generators, and environmental control 
units which will be positioned within the site's perimeter.
    Question. What is your understanding of whether the security plan 
requires the contracting of additional U.S. bases and facilities?
    Answer. Current planning does not anticipate the requirement to 
reopen previously transferred FOBs or the creation of new ones. MNF-I 
is using space on existing FOBs that have the capacity for the first 
three reinforcing BCTs, with basing requirements for the remaining two 
currently under development.

                       MILITARY TRANSITION TEAMS

    Question. Do you believe that the size, structure, number, and 
operating procedures for U.S. Military and Police Transition Teams 
embedded with ISFs need to be changed in any way?
    Answer. Yes. There is unquestionable linkage between ISF 
progression and the embedded transition team program. Despite the 
success achieved by the embedding of transition teams, the current 
Military Transition Team (MTT) size is insufficient to meet all 
operational requirements and permit an optimum level of support. The 
commander of MNC-I has initiated a plan to enhance MTTs to increase 
their effectiveness. Based on conditions within each multinational 
division (MND) area of responsibility, primarily relating to levels of 
violence and ISF capacity for independent operations, MTTs are being 
augmented by assets controlled by the respective MND Commanders. U.S. 
BCTs are the primary resource providers for these enhancements. 
Enhanced MTTs have the ability to advise ISF units down to company 
level.
    The current size, structure, and number of Police Transition Teams 
(PTT) is appropriate for the missions they are assigned. There are 
three different types of PTTs: station, district, and provincial. The 
nucleus of all PTTs is a military police squad with additional U.S. 
Army personnel added at the district and provincial level. Because of 
the mission and scope of responsibility of an Iraqi Police provincial 
directorate, the typical PTT working at that level is larger and 
includes additional military and civilian members who possess other 
specialties and expertise such as operations, personnel, logistics, and 
maintenance management. The other two key and essential components of 
all PTTs are interpreters and International Police Liaison Officers 
(IPLOs). Multinational Corps-Iraq is currently providing PTTs at a 
ratio of one for every three police stations, one for every two police 
districts, and one for every one provincial police directorate. The 
current operating procedures have resulted in clear visibility on the 
effectiveness and capabilities of Iraqi Police, from station through 
provincial level, and helped improve the Iraqi Police ability to 
conduct basic law and order missions. Upon arrival in Iraq, if 
confirmed, I will assess this again to see if augmentation is required.
    Question. What do you recommend?
    Answer. Throughout Iraq, the enhancement of the baseline MTTs will 
continue based on an assessment of the security situation in each MND 
area of responsibility. The estimate provided to me by the MNF-I staff 
is that it will take 6-12 months to move to enhanced MTTs throughout 
Iraq. Continuing and expanding the transition team program over time 
will energize ISF progression and eventually facilitate a change in 
relationship as the embedded transition teams move more toward the 
advising role and less toward mentoring or even, to a degree, leading.
    The current ratio of PTTs at the station, district, and provincial 
levels is adequate, but we also need to relocate some PTTs from 
provinces that have moved to Provincial Iraqi Control to provinces that 
have not achieved Provincial Iraqi Control. IPLOs and interpreters are 
absolutely essential to successful PTT operations. MNC-I continues to 
have difficulty recruiting and fielding new interpreters; additional 
emphasis and incentives need to be established to retain the qualified 
interpreters we currently employ. Additionally, if the IPLO program is 
ended too soon, the lack of this law enforcement expertise and 
experience would have a significant and adverse impact. A 
recommendation for making the IPLO program even better is to recruit 
law enforcement experts from other Middle Eastern nations (such as 
Jordan, Egypt, Kuwait, Saudi Arabia, etc.) into the program.
    Question. What is your understanding of how the Army and Marine 
Corps are ensuring that U.S. troops are properly trained for this duty, 
to include dissemination of ``lessons learned'' to incoming teams?
    Answer. Only qualified officers and NCOs are chosen to fill these 
critical positions, based upon their grade, skill, and experience 
match, balanced with dwell time. To facilitate and synchronize this 
effort, Army, Air Force, and Navy ``external'' transition team training 
was consolidated and is now conducted at Fort Riley, Kansas by the 1st 
Infantry Division. The two-star commander there, his staff, and a BCT 
now execute the full spectrum of tasks required to man, train, and 
equip external transition teams. The Marines are running a similar 
program at Twentynine Palms, CA. Transition team training is based on 
seven core competencies--combat skills, force protection, team support 
processes, technical and tactical training, advisor skills, 
counterinsurgency operations, and understanding the culture (which 
alone encompasses about 50 hours of training to empower the teams' 
abilities to forge a positive relationship with their Iraqi 
counterpart). The lessons learned process is critical and is integrated 
before, during, and after a team embeds with an ISF unit. Throughout 
training, team members are in communication with the team they will 
replace so they may exchange information, pass back these lessons, and 
learn about their Iraqi unit prior to deployment. Additionally, 
programs like Fort Riley (60 days), Camp Buehring (Kuwait, 6 days), and 
the Phoenix Academy (Taji, Iraq, 8 days) undergo continuous review so 
that the training can remain relevant by adapting the training model as 
necessary based on input from the field and changing conditions in 
theater. Once in theater, teams execute a 60-day assessment of the 
training they received in preparation for their assignment as advisors, 
complete a formal end of tour assessment to codify lessons learned, and 
an assessment of the transition between their team and the follow-on 
team. The Iraq Assistance Group (IAG) has also compiled transition team 
lessons learned on the IAG website for all transition teams to utilize. 
The Combat Studies Institute and Center for Army Lessons Learned have 
captured lessons on transition team operations and techniques and 
published them as well.
    The Military Police Brigade fully sources the PTTs and provides 
RSOI, implementation, execution, and mission oversight of the PTT 
Program. The brigade brings a cohesive and organic element to training, 
resourcing, and equipping PTTs which are actually military police 
squads already trained for law enforcement skills. These MP units are 
trained at home station to perform this mission. These teams are 
embedded with IPLOs who are trained, hired, and managed by the State 
Department. Host nation police building and training is a doctrinal 
military police mission. Experiences and lessons learned at Panama, 
Haiti, Somalia, Bosnia, and Kosovo all contribute to continued mission 
development and application. Lessons learned and up-to-date TTPs are 
disseminated back to the deploying units through direct contact with 
units on the ground, Pre-Deployment Site Survey (PDSS), Mission 
Readiness Exercise (MRX), and then Relief-In-Place (RIP) Program during 
which the MP Brigade conducts a PTT certification. Additionally, 
lessons learned are disseminated through the Center for Army Lessons 
Learned Website, Senior Leader forums (many virtual), the Battle 
Command Training Program COIN Seminars, combat training center mission 
rehearsal exercises, the Joint Center for International Security Force 
Assistance, and doctrine development efforts.
    Question. If confirmed, what would you recommend in this regard?
    Answer. First, it is necessary to retain the core transition team 
and ensure it continues to receive the best possible training in 
preparation for its mission of mentoring and advising the ISF unit. 
This core structure is the expertise upon which additional enhancement 
is placed. They are the subject matter experts within the transition 
team. Second, as conditions on the ground permit, I would expedite the 
enhancement of transition teams to capitalize on their contributions 
toward ISF development. This must be done in a manner that also 
balances other operational requirements, which will lessen as the 
levels of violence become more manageable for the ISF. Furthermore, 
leaders should direct the widest dissemination of lessons learned by 
our teams. The team in training as well as any team in theater must be 
alerted to newly developed tactics, techniques, and procedures that are 
proving successful in application. This is done through the Center for 
Army Lessons Learned, the Combat Studies Institute, and the Joint 
Center for International Security Force Assistance at Fort Leavenworth, 
among other agencies.

                      DETAINEE TREATMENT STANDARDS

    Question. Do you agree with the policy set forth in the July 7, 
2006 memorandum issued by Deputy Secretary of Defense England stating 
that all relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Convention?
    Answer. Yes. The standards outlined in Common Article 3 should be 
the standard for U.S. and coalition forces to adhere to in regards to 
the handling of detainees at all levels. In fact, as I noted in 
responding to one of the earlier questions, after an early case of 
detainee mistreatment, I directed that detainees in the 101st Airborne 
Division area of responsibility would be handled in accordance with the 
Geneva Convention, as those were the standards our soldiers understood.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes. I believe having one interrogation standard outlined 
in one document adds clarity. The new FM clearly articulates what is 
and what is not authorized and effectively identifies methods to ensure 
accountability.
    Question. Do you share the view of the Judge Advocates General that 
standards for detainee treatment must be based on the principle of 
reciprocity, that is, that we must always keep in mind the risk that 
the manner in which we treat our own detainees may have a direct impact 
on the manner in which U.S. soldiers, sailors, airmen, or marines are 
treated, should they be captured in future conflicts?
    Answer. Yes.
    Question. You oversaw the issuance of a new Army doctrine on 
counterinsurgency operations. Do you believe it is consistent with 
effective counterinsurgency operations for U.S. forces to comply fully 
with the requirements of Common Article 3 of the Geneva Convention?
    Answer. Yes. We can conduct effective interrogation and detention 
in wartime in a counterinsurgency environment and comply with the 
requirements outlined in Common Article 3; in fact, we had 
international human rights organizations participate in the COIN 
Seminar we hosted to discuss a very early draft of the manual. That 
conference, in fact, was co-hosted by Harvard's Carr Center for Human 
Rights.

                      IRAQ STATE-OWNED ENTERPRISES

    Question. What is your understanding of the status of Department of 
Defense efforts to help restart Iraqi state-owned enterprises to 
increase employment in Iraq?
    Answer. When the Task Force to Improve Business and Stability 
Operations-Iraq (TF BSO) arrived in Iraq, it expected to find a Soviet-
style, aging State-Owned Enterprise (SOE) industrial base that was 
grossly uncompetitive. First-hand evaluations, however, reveal that 
some of these factories possess modern--even automated--equipment, and 
are capable of producing materials and manufactured goods that would be 
competitive in both Iraqi and world markets. Some facilities have 
deteriorated or suffered from a lack of recapitalization, and require 
varying amounts of refurbishment. Other SOEs are simply obsolete, 
either because they produce materials or finished goods for which there 
is little or no demand, or because they require cost-prohibitive 
investment prior to restarting operations. SOEs traditionally employ 
large numbers of Iraqis. Their closure still requires that the 
Government of Iraq address manpower costs, principally through 
retraining programs and job placement assistance. TF BSO is not 
advocating U.S. Government investment in Iraqi factories, and is 
committed to the long-term policy of economic privatization.
    Beyond this, having helped Iraqi industries reestablish cement 
plants, small refineries, and asphalt plants, among others, while 
commanding the 101st Airborne Division, my view is that there are 
numerous industries that could be reestablished--ideally with Iraqi 
funds--and could be self-sustaining, as they enjoy a comparative 
advantage in some factor of production (e.g., Iraq has vast sulfur 
reserves, reportedly the largest in the world, which would be used to 
refine high-grade sulfur for industrial purposes and production of 
fertilizer; Iraq also has large deposits of ``sour crude'' that are 
ideal for asphalt production). I strongly support encouraging such 
initiatives.
    Question. If so, what is your view of these efforts?
    Answer. I strongly support the efforts of this task force. TF BSO 
is assessing Ministry of Industry and Minerals (MIM) SOEs as well as 
private factories. MIM is responsible for approximately 56 of the 190 
or so SOEs nationwide. These 56 SOEs have approximately 200 factories. 
Within the 56 MIM SOEs, TF BSO has assessed 25 of these and is working 
closely with Deputy Prime Minister Salih and the MIM to revitalize the 
existing Iraqi industry base. Where competitive industrial capacity 
exists, TF BSO and DOD will do everything they can to support the 
ministries, the factories, and provincial leadership to restart 
operations, re-employing as many current workers as circumstances 
permit. Several of the SOEs visited are in relatively good shape and 
can be restarted with minimal investment in power restoration. Initial 
efforts identified 10 large factories, from Baghdad through Al Anbar 
Province, where $6 million provided by the Iraqi government can restart 
operations and reemploy 11,000 workers. The products that these 
facilities generate will help to meet local and DOD demands, and have 
the potential to serve broader U.S. and global markets.

                       SPECIAL INSPECTOR GENERAL

    Question. The Special Inspector General for Iraqi Reconstruction 
(SIGIR) conducts comprehensive audits, inspections, and investigations 
which are valuable to Congress.
    If confirmed, what steps would you take to support the audits, 
inspections, and investigations conducted by the SIGIR?
    Question. The SIGIR reports provide valuable insight to the Force 
Commander, the Ambassador, and officials in Washington. I supported the 
activities of the SIGIR as MNSTC-I Commander and, if confirmed, I will 
support them as the commander of MNF-I. I should note that I also 
supported the activities of the Government Accountability Office during 
my time in Iraq and following return to the U.S., and I also invited 
the Army Audit Agency to audit activities of the 101st Airborne and 
MNSTC-I on two or three occasions while I was in Iraq.

                  MENTAL HEALTH ASSESSMENTS IN THEATER

    Question. The Army's Mental Health Advisory Team (MHAT) has made 
three separate assessments over the past several years detailing the 
immediate effects of combat on mental health conditions of U.S. 
soldiers deployed to Iraq. The most recent study, MHAT III, found that 
multiple deployers reported experiencing higher levels of acute stress, 
and that overall levels of combat stressors are increasing. These types 
of reports lend support to the fact that increasing numbers of troops 
are returning from duty in Iraq with Post Traumatic Stress Disorder 
(PTSD), depression, and other mental health issues.
    What is your understanding of the key findings of the previous 
mental health assessments, actions taken by the Army to address key 
findings, and the effect of such actions?
    Answer. The MHAT assessments looked at morale, mental health 
staffing, access to mental health care, stress from multiple 
deployments, and leadership issues. The general findings from the 
studies showed that multiple deployments and longer deployments were by 
far the leading factors that increased the incidence of mental health 
issues. The studies recommended redistribution of mental health staff 
to provide better coverage and the development of a suicide prevention 
program within theater.
    The MHAT 4 study completed in October 2006 showed that the staffing 
was better, which improved access to mental health care for troops. In 
August 2006, the MNF-I Surgeon published behavioral health guidelines, 
which implemented recommendations from the MHAT III study. These 
included the establishment of a multi-disciplinary Suicide Prevention 
Committee, whose purpose is to address theater-specific issues related 
to military member suicides.
    In addition there is a mental health web site for commanders on the 
MNF-I portal and there are mandatory pre- and post-deployment mental 
health assessments and reassessments (3-6 months post deployment). MNF-
I has also created a working group consisting of G1 personnel, CID 
agents, chaplains, surgeons, and mental health professionals that meets 
not less than quarterly to assess the status of mental health in the 
AOR.
    Question. If confirmed, would you support continuous mental health 
assessments of the U.S. forces in Iraq?
    Answer. Yes.
    Question. Do you have any views on how to best address the mental 
health needs of our troops, in terms of both prevention and treatment?
    Answer. As explained above, I believe we are doing a considerable 
amount to support the mental health of the force in Iraq; having said 
that, we must continue to re-examine whether we are doing all that we 
can in this critical area. Iraq is a war zone and we can diminish but 
not eliminate mental health problems. MNF-I has the assets and 
capabilities to provide prevention measures and treatment throughout 
Iraq, to include teams that periodically perform outreach at main bases 
and remote sites to identify potential issues. If confirmed, I will 
monitor this area closely.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commander, MNF-I?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Daniel K. Akaka

                             IRAN AND SYRIA

    1. Senator Akaka. Lieutenant General Petraeus, during the 
President's address to the Nation, he asserted that succeeding in Iraq 
also required defending its territorial integrity. He stated that Iran 
was providing material support for attacks on our troops, that we will 
interrupt the flow of support from Iran and Syria, and that we will 
seek out and destroy the networks providing advanced weaponry and 
training to our enemies in Iraq. I am concerned about how this will be 
done, and what potential it creates for a regional escalation. In 
particular, I want to make sure we have adequately planned for 
protecting our troops in the event of a regional escalation. I note 
that the recent deployment of another carrier strike group to the 
Persian Gulf area and the nomination of a Navy Admiral to head U.S. 
Central Command which seems to indicate an expansion of military focus 
beyond Iraq and Afghanistan. What do you believe is the potential for 
our efforts to interrupt the flow of support from Iran and Syria to 
cause an escalation to a regional conflict?
    General Petraeus. One of our broad priorities in Iraq will include 
countering the threats posed by Iranian and Syrian support to 
extremists in Iraq, along with the continued mission of dismantling 
terrorist networks in the country.
    Multinational Force-Iraq (MNF-I) works closely with the developing 
Iraqi border security forces to interdict the trafficking of foreign 
fighters, weapons, explosives, and other contraband across the borders 
of Iraq. I will work closely with the Ambassador as he and the 
diplomatic community pursue actions to disrupt influence from external 
sources, while simultaneously working to prevent potential escalation.
    MNF-I continues to take measures to ensure our troops' protection 
from all identified threats, and we are keeping a close eye on evolving 
threats, both from within Iraq and from neighboring countries.

    2. Senator Akaka. Lieutenant General Petraeus, in your opinion, 
does the lack of diplomatic engagement with Iran and Syria increase the 
risk of an escalation?
    General Petraeus. With respect, the conduct of diplomatic 
engagement with Iran and Syria is beyond my purview, though I have 
discussed ongoing and contemplated actions with various members of the 
State Department, and I know that they are carefully weighing the pros 
and cons of various initiatives.

    3. Senator Akaka. Lieutenant General Petraeus, have specific plans 
been developed to protect our troops if it does escalate?
    General Petraeus. As I noted earlier, we constantly assess how to 
improve the force protection posture of our troops, while 
simultaneously working to ensure mission accomplishment. We have 
examined and continue to examine potential threats from all quarters, 
including greater outside involvement in Iraq, and we take appropriate 
measures in response--including constant upgrading of personal 
protective equipment, addition of surveillance assets, improvements to 
vehicular protection, improved weaponry, and so on.

                              NEW STRATEGY

    4. Senator Akaka. Lieutenant General Petraeus, it is my 
understanding that you are one of the Army's leading authorities on 
counterinsurgency. As such, I'm interested in your evaluation of the 
new strategy for the surge. Specifically, would you suggest any 
additional actions that were excluded from the new strategy (e.g., seek 
additional troops or other forms of assistance from our allies, 
coalition partners, or Iraq's neighboring nations)?
    General Petraeus. The Army's new counterinsurgency manual makes 
clear that security of the population must be the priority in a 
situation like that in Iraq--and it will be our priority as we conduct 
the surge. We must, together with our Iraqi partners, clear, control, 
and retain the neighborhoods of Baghdad to break the cycle of violence 
that is preventing political progress in Iraq. We can only do this by 
establishing persistent presence--coalition, as well as Iraqi--in Iraqi 
neighborhoods. I plan to ensure that a portion of our forces locate in 
the neighborhoods they protect and that they carry out operations 
closely linked with their Iraqi counterparts--with the Iraqis in the 
lead whenever possible--to secure the population.
    The enemies we face are adaptive and as requirements change, I will 
request additional support (the accelerated arrival of the 3d Infantry 
Division Headquarters is a result of this), if needed, and clearly 
outline the various risks to our strategy. We will also work closely 
with our interagency, coalition, and Iraqi partners to set the 
conditions for success in Iraq.

    5. Senator Akaka. Lieutenant General Petraeus, would you suggest 
improvements to any of the tactics that are included in the new 
strategy?
    General Petraeus. I am pleased with the changes our military is 
making in training, manning, and equipping the force to fight this kind 
of conflict. Two big changes are being asked of our forces under this 
new strategy--the expanded use of enhanced and embedded transition 
teams and the renewed emphasis on positioning forces in the 
neighborhoods among the people. Our military has done a good job with 
the collection and dissemination of lessons learned and the practice of 
the latest tactics, techniques, and procedures in our training centers 
as troops prepare to deploy. Our troops and leaders are prepared for 
the implementation of the new strategy, though we undoubtedly will 
continue to learn as we carry out the new operations--and we plan to 
share lessons throughout the force as we do.

    6. Senator Akaka. Lieutenant General Petraeus, you recently were 
interviewed by Spiegel magazine, a German periodical. During the 
interview, you stated that much of counterinsurgency operations is 
counter-intuitive. You further called counterinsurgency operations 
``war at the graduate level'' and ``thinking man's warfare.'' You also 
said that we want our young officers to think, not memorize, because 
they cannot kill their way out of an insurgency. You indicated that you 
have to take out the elements that will never reconcile with the new 
government, or with the system, but then try to win over the rest of 
the population. This part is not done with tanks and rifles. How well-
trained are the junior officers and troops in the counterinsurgency 
doctrine?
    General Petraeus. Over the past 15 months, I have been privileged 
to oversee the organizations that educate our Army's leaders, draft our 
doctrine, capture lessons learned, and help our units prepare for 
deployment.
    Our small unit leaders are increasingly well-trained for 
counterinsurgency warfare. The Army and Marine Corps' professional 
military educational institutions have institutionalized the new 
counterinsurgency doctrine recently published in Field Manual 3-24 
(that process began well before the manual was finally published, based 
on articles and lessons learned). Furthermore, our combat training 
centers now focus on counterinsurgency operations during unit mission 
rehearsal exercises. Leaders are further honed by counterinsurgency 
seminars and training conducted in the United States, Kuwait, and at 
the Taji Counterinsurgency Center for Excellence in Iraq. This training 
has made our junior leaders and soldiers better prepared for 
counterinsurgency warfare and more adaptive to the situations they will 
face in Iraq. Learning continues, however, and the Center for Army 
Lessons Learned, Asymmetric Warfare Group, and other elements 
facilitate the collection and distribution of lessons that we continue 
to capture.

    7. Senator Akaka. Lieutenant General Petraeus, how prepared are 
they to implement the President's new strategy for the surge?
    General Petraeus. Our officers and troops are well-trained, well-
equipped, and ready for the tactics asked of them in this new 
strategy--though it will represent a change in operating style for some 
units, and we will continue to learn new lessons as we carry out the 
surge.

    8. Senator Akaka. Lieutenant General Petraeus, how well-trained are 
the Iraqi security forces (ISFs) in counterinsurgency doctrine?
    General Petraeus. The ISFs have made solid gains in professionalism 
and capability over the past 3 years, though they still have a long way 
to go in certain elements. They are especially effective when operating 
in concert with coalition forces at population security. The Iraqi 
units obviously have greater cultural awareness and linguistic 
capabilities, while U.S. forces bring greater military capabilities to 
the battlefield.

    9. Senator Akaka. Lieutenant General Petraeus, given that the new 
strategy for the surge is heavily reliant on the Iraqis leading the 
security efforts, how can we be sure that they have correctly 
identified ``the elements that will never reconcile with the new 
government'' and will not just be utilizing their position to eliminate 
dissenters?
    General Petraeus. In fact, there is work to be done in this area, 
and I have discussed it with the Prime Minister and the Ministers of 
Defense and Interior. Actions have already been taken against a number 
of leaders and units shown to be using their positions for sectarian 
purposes, and more will be taken--increasingly by Iraqi officials and 
elements. While we are generally encouraged by the slow growth in 
professionalism of the ISFs, we believe that a very robust partnering 
of coalition forces with the Iraqi Army and National Police elements 
will prevent any such sectarian bias in their application of force as 
we help the Iraqi government identify elements and leaders who need to 
be removed and, in some cases, brought to justice.
                                 ______
                                 
               Questions Submitted by Senator Ben Nelson

                          PRESIDENT'S NEW PLAN

    10. Senator Ben Nelson. Lieutenant General Petraeus, obviously, a 
drop in violence is a benchmark, but that can be temporary as we have 
seen in Iraq. What should policymakers specifically be looking to see 
on the ground in Baghdad over the next 6 months with the President's 
new plan?
    General Petraeus. A reduction in violence as part of improving 
security for the people clearly is the top indicator. Over time, that 
is one that must be seen. But it will take time. We may or may not see 
a significant drop in violence at the beginning of the operation, but 
the key is the long-term improvement of security, public confidence, 
basic services, economic development, and government capacity. We will 
not eliminate violence from the streets of Baghdad on our watch, but we 
must help the Iraqis reduce the level of violence, intimidation of the 
populations of various neighborhoods, and so on. I believe that over a 
period of months there will be a reduction of violence, although it 
will be uneven and will differ from area to area. This achievement is 
nonetheless critical to allowing the other elements of national power 
to come to bear on the problem in Baghdad and Iraq as a whole, and for 
Iraq to resolve the political issues that are the true solution to its 
long-term problems.

    11. Senator Ben Nelson. Lieutenant General Petraeus, how long will 
it be before the committee can be notified of the results of the plan?
    General Petraeus. It will take several months at the least. That 
allows for the time for the additional forces to flow to Iraq, time for 
them to gain an understanding of the areas in which they will operate, 
time to plan with and get to know their Iraqi partners, time to set 
conditions for the successful conduct of security operations, and, of 
course, time to conduct those operations and then to build on what they 
achieve. Success, again, will occur over a period of months, not weeks 
or days.
    None of this, in fact, will be rapid. The way ahead will be neither 
quick nor easy, and there undoubtedly will be tough days. We face a 
determined, adaptable, and barbaric enemy. MNF-I will work closely with 
our Iraqi ISF partners to secure the population and help to facilitate 
the enhancement of quality of life for the citizens, and I do believe 
we can do that. I will provide periodic updates when requested.

    12. Senator Ben Nelson. Lieutenant General Petraeus, if the plan is 
tried, attempted, and is not successful, will you come back to Congress 
and explain what happened and why?
    General Petraeus. I will provide you with forthright, professional 
military advice with respect to the missions given to MNF-I and the 
situation on the ground in Iraq. Should I determine that new strategy 
cannot succeed, I will provide such an assessment.

                                MILITIAS

    13. Senator Ben Nelson. Lieutenant General Petraeus, in my opinion, 
Iraq will not long survive as a nation with armed militias roaming the 
streets of Baghdad. We know the profound impact armed militias have had 
in Israel and Lebanon. I am, to say the least, skeptical about the 
Prime Minister's desire to take on Moqtada al-Sadr's Mahdi army. Does 
Prime Minister Maliki have the will to engage Shia militias?
    General Petraeus. I have already begun, together with the 
Ambassador, developing a relationship with Prime Minister Maliki. My 
early impression is that he is genuinely concerned with the future of 
Iraq and not just the interests of his sect or political coalition. He 
does appear to want to be Prime Minister for all Iraqis and has taken 
steps that confirm this. That is critical, as the Iraqi government 
dealing fairly with all sects and ethnic groups is critical for long-
term political and military success. I will work closely with the Prime 
Minister and his commanders to help them enforce the law and secure the 
population. Prime Minister Maliki has already taken steps in this 
direction by ensuring that there are no safe havens in Iraq, and 
insurgents, terrorists, and criminals will be dealt with in accordance 
with the law regardless of sect or ethnicity.

    14. Senator Ben Nelson. Lieutenant General Petraeus, if a decision 
is made not to engage Sadr at this time, what could that mean when 
American forces leave?
    General Petraeus. I will work with the Iraqi government to engage 
all organizations within Iraqi society who are genuinely amenable to 
political negotiation and accommodation. A lasting peace can only be 
secured by the creation of a political compact that encompasses all 
parties willing to join such an enterprise. Those organizations that 
refuse to recognize the legitimacy of the government of Iraq will be 
neutralized to the extent that they will be unable to interfere with 
the governance of the country.

    15. Senator Ben Nelson. Lieutenant General Petraeus, is it a good 
idea to leave an armed militia in Iraq's capital?
    General Petraeus. No. We want to see an Iraq in which the 
government, through its established and regulated police and army, 
maintains a monopoly on the possession and use of organized armed 
force.

    16. Senator Ben Nelson. Lieutenant General Petraeus, could you see 
a scenario where the military and al-Sadr's militia work together to 
further cleanse Baghdad of their Sunni presence?
    General Petraeus. That is obviously one of the scenarios the surge 
is intended to prevent.

                         IRAQI SECURITY FORCES

    17. Senator Ben Nelson. Lieutenant General Petraeus, in your 
estimation, how many troops do ISFs have that are trained and capable 
of undertaking the President's new plan?
    General Petraeus. Iraqi Army, Police, and Special Operations 
Forces, together with the U.S. forces currently on the ground or 
deploying to Baghdad (and this is Baghdad-centric) in the months ahead, 
will total some 85,000--though, to be sure, not all of those are of the 
same levels of effectiveness. I have emphasized to the Iraqi government 
the necessity of ensuring that these forces deploy at 100 percent 
strength, and the Ministry of Defense is taking action to ensure that 
this happens. It did not, with some of the earlier deployers. With the 
addition of all five U.S. brigades under orders to reinforce Baghdad 
and the ISFs either in Baghdad or headed to the city, there should be 
sufficient military forces available to achieve our objective of 
securing Baghdad, which will improve security and set the conditions 
for U.S. Government and Iraqi government advances in the decisive areas 
of governance, economic development, and Rule of Law.

    18. Senator Ben Nelson. Lieutenant General Petraeus, what 
confidence do you have in the capacity of these troops to both 
``clear'' and ``hold''?
    General Petraeus. I believe this plan can succeed. We have to 
change the longstanding paradigm of clearing a neighborhood and then 
moving on in favor of a constant and active presence among the people. 
This will be a change for both coalition and Iraqi forces, but I am 
confident that they will adapt and perform admirably.
    The ISFs have received reasonable training and they've received 
reasonable equipping. Leadership on the ground with the soldiers and 
policemen will make the difference and we are seeing an increase in the 
professionalism, confidence, and capability of Iraqi leaders.

    19. Senator Ben Nelson. Lieutenant General Petraeus, do you believe 
the Iraqis have accepted this plan as their own and not simply an 
American plan?
    General Petraeus. Yes.
                                 ______
                                 
                Questions Submitted by Senator Jim Webb

                             ACCOUNTABILITY

    20. Senator Webb. Lieutenant General Petraeus, you have stated that 
``money is ammunition'' in Iraq; do you agree that immediate, full 
accountability is essential for money already appropriated and spent?
    General Petraeus. Depending on the situation, money can be more 
important than ammunition in the counterinsurgency fight. Once money is 
available, the challenge is to spend it effectively and quickly to 
rapidly achieve measurable results. Money needs to be provided as soon 
as possible to the organizations that have the capability and capacity 
to spend it in such a manner. At the same time, the American public 
rightfully deserves to know that its funds are spent carefully and 
transparently. I believe that we have the processes in place to use 
money for its intended purposes without compromising the trust and 
confidence of the United States taxpayer. In the past, I personally 
requested assistance from teams of auditors from the Army Audit Agency. 
I also supported the activities of the Special Inspector General for 
Iraq Reconstruction (SIGIR), Department of Defense Inspector General 
(DOD IG), and Government Accountability Office (GAO), and overseen 
corrective measures when areas needing improvement have been 
identified. I met with the SIGIR and DOD IG in Washington, in fact, and 
pledged continued support to them.

    21. Senator Webb. Lieutenant General Petraeus, if so, how will you 
assist this committee in providing such accountability and in assuring 
transparency in ongoing projects?
    General Petraeus. We have fiscal oversight processes in place now 
in MNF-I. For example, the SIGIR reports provide valuable insight to 
the Force Commander, the Ambassador, and officials in Washington. 
Again, I supported the activities of the SIGIR as Multnational Security 
Transition Command-Iraq (MNSTC-I) Commander and I will support them as 
the Commander of MNF-I. I should note that I also supported the 
activities of the GAO during my time in Iraq and following return to 
the U.S., and I also invited the Army Audit Agency to audit activities 
of the 101st Airborne and MNSTC-I on two or three occasions while I was 
in Iraq. It is important that Congress and the American people have 
confidence that we are diligently expending funds allocated to us.
                                 ______
                                 
             Questions Submitted by Senator Elizabeth Dole

                              COOPERATION

    22. Senator Dole. Lieutenant General Petraeus, one of your 
predecessors, LTG Peter Chiarelli, has stressed the need for unity of 
command. Would you explain your views on the issue, first at it relates 
to the need for greater cooperation between the U.S. Ambassador and the 
Commander of the MNF-Is, than was the case with your predecessors, and 
then link those thoughts with the need for greater unity of effort both 
between U.S. organizations, primarily DOD and the State Department, and 
then with the Iraqi government.
    General Petraeus. Only through unity of effort of all--coalition 
and Iraqi, military and civilian--can we bring the full weight of our 
effort to bear on the difficult situation in Iraq. You have my 
commitment that I will work closely with the Ambassador to fully 
coordinate our actions in Iraq. Only through the full application of 
all elements of national power, through the various agencies, will we 
have the chance to achieve success.
    Our military is making an enormous commitment in Iraq. The 
integration of joint capabilities under the Goldwater-Nichols Act has 
been a success. Our military forces are more interoperable today than 
they ever have been in our Nation's history. This achievement is 
impressive. Over time, we need the rest of the departments to do 
likewise, to help the Iraqi government get the country and its citizens 
working, and to use Iraq's substantial oil revenues for the benefit of 
all the Iraqi people.
    The next step is to ensure the ability of the military and civilian 
departments to work closely together. Counterinsurgency warfare 
requires a total commitment of the government--both military and 
civilian agencies--and unity of effort is crucial to success. 
Integration of the interagency effort to ensure that progress is made 
along all lines-of-operation--not just security, but economic, 
governance, and the rule of law as well--is a significant challenge. I 
applaud the recent efforts to embed the Provincial Reconstruction Teams 
in the Brigade Combat Team (BCT) headquarters for those provinces in 
which BCTs are the senior headquarters, or in the division headquarters 
in areas where they are the senior headquarters in a province. This 
will provide a synergy that will significantly enhance our ability to 
conduct stability and reconstruction operations in Iraq.
    I will do all that I can, in partnership with the Ambassador, to 
ensure that our interagency is doing all possible to help develop 
capacity in the Iraqi government and to enable it to come to grips with 
the tough issues it must resolve.

                         SUNNI/SHIITE RELATIONS

    23. Senator Dole. Lieutenant General Petraeus, do you agree with 
the testimony of General Keane, U.S. Army (Retired), on January 25 that 
the catalyst that drives sectarian violence in Iraq is Sunni violence 
against the Shiite population?
    General Petraeus. This is a very complicated situation. Sunni 
violence against Shia is just one aspect of violence in Iraq. There is 
also the continuing al Qaeda terrorism. Shia violence against Sunnis 
plays a part, as does Shia on Shia violence. Organized criminal 
violence is also an unsettling factor. To place full responsibility on 
the Sunnis misrepresents the complex threat environment in Iraq, though 
some of the catalysts for sectarian violence (such as the Samarra 
mosque bombing) were earned out by Sunni extremists.

    24. Senator Dole. Lieutenant General Petraeus, what is your plan 
for the deployment of forces across targeted neighborhoods in Baghdad 
so as to avoid, to the fullest extent possible, any appearance of bias 
toward either Sunnis or Shiites?
    General Petraeus. ISFs will be assigned areas of operations 
throughout Baghdad without regard to sectarian composition of the 
units. Brigades of the 6th and 9th Iraqi Divisions, each of which have 
a mix of Shia and Sunni personnel (though predominantly Shia in their 
makeup) will be employed in all nine administrative districts of the 
city. It is true that some districts in the city are predominantly 
Shia, while others are predominantly Sunni. However, U.S. Army 
battalions will be partnered with these Iraqi brigades to reinforce the 
practice that all security forces operate in a professional, 
disciplined, and ethical manner, and in accordance with the rule of 
law, international humanitarian norms, and recognized international 
standards for enforcement and protection of human rights.
    It is important to ensure no particular sect feels persecuted by 
the deployment of any ISF in their neighborhood. The partnering of a 
U.S. battalion with each ISF brigade will ensure that sectarian 
divisions and mistrust are kept to a minimum.
                                 ______
                                 
    [The nomination reference of LTG David H. Petraeus, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 16, 2007.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Army to the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C., section 601:

                             To be General.

    LTG David H. Petraeus, 0000.
                                 ______
                                 
    [The biographical sketch of LTG David H. Petraeus, USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
         Resume of Service Career of LTG David H. Petraeus, USA
Source of commissioned service: USMA.

Military schools attended:
    Infantry Officer Basic and Advanced Courses,
    Armor Officer Advanced Course,
    United States Army Command and General Staff College,
    Senior Service College Fellowship--Georgetown University.

Educational degrees:
    United States Military Academy--BS--No Major.
    Princeton University--MPA--International Relations.
    Princeton University--PHD--International Relations.

Foreign language(s): None recorded.

Promotions:

------------------------------------------------------------------------
                                                Dates of appointment
------------------------------------------------------------------------
2LT.......................................  5 Jun 74
1LT.......................................  5 Jun 76
CPT.......................................  8 Aug 78
MAJ.......................................  1 Aug 85
LTC.......................................  1 Apr 91
COL.......................................  1 Sep 95
BG........................................  1 Jan 00
MG........................................  1 Jan 03
LTG.......................................  18 May 04
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
May 75..........................  Jan 79............  Platoon Leader, C
                                                       Company, later S-
                                                       4 (Logistics),
                                                       later S-1
                                                       (Personnel),
                                                       509th Airborne
                                                       Battalion Combat
                                                       Team, Vicenza,
                                                       Italy.
Jan 79..........................  Jul 79              Assistant S-3
                                                       (Operations), 2d
                                                       Brigade, 24th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Stewart, GA.
Jul 79                            May 81............  Commander, A
                                                       Company, later S-
                                                       3 (Operations),
                                                       2d Battalion,
                                                       19th Infantry,
                                                       24th Infantry
                                                       Division
                                                       (Mechanized),
                                                       Fort Stewart, GA.
May 81..........................  May 82............  Aide-de-Camp to
                                                       the Division
                                                       Commander, 24th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Stewart, GA.
May 82..........................  Jun 83............  Student, Command
                                                       and General Staff
                                                       Officer Course,
                                                       Fort Leavenworth,
                                                       KS.
Jun 83..........................  Jun 85............  Student, Princeton
                                                       University,
                                                       Princeton, NJ.
Jul 85                            Jun 87............  Instructor, later
                                                       Assistant
                                                       Professor,
                                                       Department of
                                                       Social Sciences,
                                                       United States
                                                       Military Academy,
                                                       West Point, NY.
Jun 87..........................  Jun 88............  Military Assistant
                                                       to the Supreme
                                                       Allied Commander
                                                       Europe, Supreme
                                                       Headquarters,
                                                       Allied Powers
                                                       Europe, Belgium.
Jun 88..........................  Aug 89............  S-3 (Operations),
                                                       2d Battalion,
                                                       30th Infantry,
                                                       later 1st
                                                       Brigade, 3d
                                                       Infantry Division
                                                       (Mechanized),
                                                       United States
                                                       Army Europe,
                                                       Germany.
Aug 89..........................  Aug 91............  Aide/Assistant
                                                       Executive Officer
                                                       to the Chief of
                                                       Staff, United
                                                       States Army,
                                                       Washington, DC.
Aug 91..........................  Jul 93              Commander, 3d
                                                       Battalion, 187th
                                                       Infantry, 101st
                                                       Airborne Division
                                                       (Air Assault),
                                                       Fort Campbell,
                                                       KY.
Jul 93                            Jul 94              G-3 (Operations)/
                                                       Director of
                                                       Plans, Training,
                                                       and Mobilization,
                                                       101st Airborne
                                                       Division (Air
                                                       Assault), Fort
                                                       Campbell, KY.
Aug 94..........................  Jan 95............  Senior Service
                                                       College Fellow,
                                                       Georgetown
                                                       University,
                                                       Washington, DC.
Jan 95..........................  Jun 95............  Chief Operations
                                                       Officer, U.N.
                                                       Mission in Haiti,
                                                       Operation Uphold
                                                       Democracy, Haiti.
Jun 95..........................  Jun 97............  Commander, 1st
                                                       Brigade, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC.
Jun 97..........................  Sep 97............  Executive
                                                       Assistant to the
                                                       Director of the
                                                       Joint Staff, The
                                                       Joint Staff,
                                                       Washington, DC.
Oct 97..........................  Aug 99............  Executive
                                                       Assistant to the
                                                       Chairman, Joint
                                                       Chiefs of Staff,
                                                       Office of the
                                                       Joint Chiefs of
                                                       Staff,
                                                       Washington, DC.
Aug 99..........................  Jul 00              Assistant Division
                                                       Commander
                                                       (Operations), 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, North
                                                       Carolina and
                                                       Commanding
                                                       General, Combined
                                                       Joint Task Force-
                                                       Kuwait, Operation
                                                       Desert Spring,
                                                       Kuwait.
Jul 00                            Aug 00............  Acting Commanding
                                                       General, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC.
Aug 00..........................  Jun 01............  Chief of Staff,
                                                       XVIII Airborne
                                                       Corps, Fort
                                                       Bragg, NC.
Jun 01..........................  Jun 02............  Assistant Chief of
                                                       Staff for
                                                       Operations, SFOR
                                                       and Deputy
                                                       Commander, United
                                                       States Joint
                                                       Interagency
                                                       Counterterrorism
                                                       Task Force,
                                                       Operation Joint
                                                       Forge, Sarajevo,
                                                       Bosnia-
                                                       Herzegovina.
Jul 02                            May 04............  Commanding
                                                       General, 101st
                                                       Airborne Division
                                                       (Air Assault) and
                                                       Fort Campbell,
                                                       Fort Campbell,
                                                       KY, and Operation
                                                       Iraqi Freedom,
                                                       Iraq.
May 04..........................  Sep 05............  Commander,
                                                       Multinational
                                                       Security
                                                       Transition
                                                       Command-Iraq/
                                                       Commander, NATO
                                                       Training Mission-
                                                       Iraq, Operation
                                                       Iraqi Freedom,
                                                       Iraq.
------------------------------------------------------------------------

Summary of joint assignments:

------------------------------------------------------------------------
                                         Dates               Rank
------------------------------------------------------------------------
Military Assistant to the Supreme     Jun 87-Jun 88  Major
 Allied Commander Europe, Supreme
 Headquarters, Allied Powers
 Europe, Belgium (Cumulative
 Joint Credit).
Chief Operations Officer, U.N.        Jan 95-Jun 95  Lieutenant Colonel
 Mission in Haiti, Operation
 Uphold Democracy, Haiti (No
 Joint Credit).
Executive Assistant to the            Jun 97-Aug 99  Colonel
 Director, The Joint Staff, later
 Executive Assistant to the
 Chairman, Joint Chiefs of Staff,
 Washington, DC.
Commanding General, Combined          Aug 99-Sep 99  Colonel
 Joint Task Force-Kuwait,
 Operation Desert Spring, Kuwait
 (No Joint Credit).
Assistant Chief of Staff for          Jun 01-Jun 02  Brigadier General
 Operations, SFOR and Deputy
 Commander, United States Joint
 Interagency Counter-Terrorism
 Task Force, Operation Joint
 Forge, Sarajevo, Bosnia-
 Herzegovina (No joint credit).
Commander, Multinational Security     May 04-Sep 05  Lieutenant General
 Transition Command-Iraq/
 Commander, NATO Training Mission-
 Iraq, Operation Iraqi Freedom,
 Iraq.
------------------------------------------------------------------------

U.S. decorations and badges:
    Defense Distinguished Service Medal
    Distinguished Service Medal
    Defense Superior Service Medal (with Oak Leaf Cluster)
    Legion of Merit (with three Oak Leaf Clusters)
    Bronze Star Medal with ``V'' Device
    Defense Meritorious Service Medal
    Meritorious Service Medal (with two Oak Leaf Clusters)
    Joint Service Commendation Medal
    Army Commendation Medal (with two Oak Leaf Clusters)
    Joint Service Achievement Medal
    Army Achievement Medal
    Combat Action Badge
    Expert Infantryman Badge
    Master Parachutist Badge
    Air Assault Badge
    Ranger Tab
    Joint Chiefs of Staff Identification Badge
    Army Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by LTG David H. 
Petraeus, USA, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    David H. Petraeus.

    2. Position to which nominated:
    Commander, Multinational Force-Iraq, Operation Iraqi Freedom.

    3. Date of nomination:
    16 Jan. 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    7 November 1952; Cornwall on Hudson, New York.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Hollister Knowlton Petraeus.

    7. Names and ages of children:
    Anne, 24; Stephen, 20.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Council on Foreign Relations.
    Association of the United States Army.
    Association of Graduates, United States Military Academy.
    82d Airborne Division Assosciation.
    101st Airborne Division Association.
    504th Parachute Infantry Regiment Association.
    Static Line Association.
    555th Parachute Infantry Regiment Association.
    187th Infantry Regiment Association.
    SHAPE Alumni Association.
    7th Armored Division Association.
    Princeton Alumni Association.
    United States Parachute Association.
    Command and General Staff Foundation.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify before any duly constituted 
committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 David H. Petraeus.
    This 16th day of January, 2007.

    [The nomination of LTG David H. Petraeus, USA, was reported 
to the Senate by Chairman Levin on January 24, 2007, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on January 26, 2007.]


  NOMINATION OF ADM WILLIAM J. FALLON, USN, FOR REAPPOINTMENT TO THE 
  GRADE OF ADMIRAL AND TO BE COMMANDER, UNITED STATES CENTRAL COMMAND

                              ----------                              


                       TUESDAY, JANUARY 30, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, 
Lieberman, Reed, Akaka, Bill Nelson, Bayh, Clinton, Webb, 
McCaskill, McCain, Warner, Inhofe, Sessions, Collins, 
Chambliss, Graham, Dole, Cornyn, Thune, and Martinez.
    Committee staff members present: Richard D. DeBobes, staff 
director; Christine E. Cowart, chief clerk; and Leah C. Brewer, 
nominations and hearings clerk.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; Madelyn R. Creedon, counsel, Evelyn 
N. Farkas, professional staff member; Creighton Greene, 
professional staff member; Michael J. Kuiken, professional 
staff member; Gerald J. Leeling, counsel; Peter K. Levine, 
general counsel; William G.P. Monahan, counsel; Michael J. 
Noblet, research assistant; and Arun A. Seraphin, professional 
staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Ambrose R. Hock, professional staff member; 
Gregory T. Kiley, professional staff member; Derek J. Maurer, 
professional staff member; Lucian L. Niemeyer, professional 
staff member; Christopher J. Paul, professional staff member; 
Lynn F. Rusten, professional staff member; Robert M. Soofer, 
professional staff member; Sean G. Stackley, professional staff 
member; and Diana G. Tabler, professional staff member.
    Staff assistants present: David G. Collins and Fletcher L. 
Cork.
    Committee members' assistants present: Sharon L. Waxman, 
assistant to Senator Kennedy; Frederick M. Downey, assistant to 
Senator Lieberman; Elizabeth King, assistant to Senator Reed; 
Darcie Tokioka, assistant to Senator Akaka; Caroline Tess, 
assistant to Senator Bill Nelson; Benjamin Rinaker, assistant 
to Senator Ben Nelson; Todd Rosenblum, assistant to Senator 
Bayh; Andrew Shapiro, assistant to Senator Clinton; Gordon I. 
Peterson and Michael L. Sozan, assistants to Senator Webb; 
Nichole M. Distefano, assistant to Senator McCaskill; Vince 
Piperni and Jeremy Shull, assistants to Senator Inhofe, Mark J. 
Winter, assistant to Senator Collins; Clyde A. Taylor IV, 
assistant to Senator Chambliss; Adam G. Brake, assistant to 
Senator Graham; Lindsey Neas, assistant to Senator Dole; Stuart 
C. Mallory, assistant to Senator Thune; and Brian W. Walsh, 
assistant to Senator Martinez.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    Today, we welcome Admiral William J. Fallon, USN, the 
President's nominee for Commander, U.S. Central Command 
(CENTCOM). Admiral Fallon has distinguished himself in service 
to our country for over 39 years in a number of challenging and 
important assignments, including 24 years in naval aviation, 
logging over 4,800 flight hours, and then a succession of staff 
and command positions, culminating as the current Commander, 
U.S. Pacific Command (PACOM).
    We're particularly grateful for Admiral Fallon's 
willingness to take on another, and probably the most 
challenging assignment of all as the CENTCOM Commander, 
following in the footsteps of General John Abizaid. One of the 
critical attributes that any geographic combatant commander 
must have is an ability to understand the geopolitical context 
of the region, as well as the political dynamics internal to 
the countries that comprise the region.
    In his current assignment as Commander of the U.S. PACOM, 
Admiral Fallon has exhibited a keen understanding of political 
dynamics, successfully building renewed military-to-military 
relationships with China and Indonesia, two of the most 
important countries in the Pacific. His demonstrated ability in 
this regard will serve this Nation well when dealing with the 
complex politics of the Persian Gulf and understanding the 
interactions between the use of force and political dynamics in 
Iraq.
    While the situation in Iraq will no doubt demand a large 
degree of his attention and time, the challenges in the CENTCOM 
area of responsibility (AOR) are diverse, difficult, and, at 
times, seemingly intractable. They're also of immense 
importance to the security of this Nation. The U.S. CENTCOM is 
the U.S. military's most challenging combatant command. The 
threats the U.S. faces in the CENTCOM AOR go far beyond Iraq 
and Afghanistan. Iran, Syria, Lebanon, Somalia, and the Horn of 
Africa, among other locations, also pose significant potential 
threats to the United States. As the top military commander in 
this unstable region of the world, Congress and the President 
will be relying heavily on Admiral Fallon's advice.
    The challenges in the CENTCOM AOR are complex and 
interrelated. As the Iraq Study Group stated, Iraq cannot be 
addressed effectively in isolation from other major regional 
issues, interests, and unresolved conflicts. His predecessor in 
the position to which Admiral Fallon has been nominated, 
General Abizaid, testified to this committee on August 3, 2006, 
saying, ``Iraq sits at the center of the broader regional 
problem.'' General Abizaid made a similar point in December, 
when he said, ``You have to internationalize the problem. You 
have to attack it diplomatically, geostrategically. You can't 
just apply a microscope on a particular problem in downtown 
Baghdad and a particular problem in downtown Kabul and say 
that, somehow or another, if you throw enough military forces 
at it, then you're going to solve the broader issues in the 
region of extremism.''
    This broader struggle against violent extremism extending 
throughout the region poses a significant challenge for the 
next Commander of U.S. CENTCOM. Ambassador John Negroponte, the 
Director of the National Intelligence (DNI), testified before 
the Senate Select Committee on Intelligence that al Qaeda 
remains the greatest terrorist threat to our security interests 
and those of our allies. He said that al Qaeda is operating 
from secure hideouts in Pakistan, developing stronger 
operational relationships that radiate throughout the Middle 
East, Northern Africa, and Europe. Ambassador Negroponte has 
also warned of the growing shadow of Iranian influence in the 
Middle East region. Iranian support for Shia militias in Iraq, 
their backing of Hezbollah in Lebanon, possible Iranian 
influence with Shiites in western Afghanistan, and Iran's 
ongoing pursuit of a nuclear capability all pose risks to 
regional security and to international security. The next 
CENTCOM Commander will need to provide straightforward, 
independent advice on the most effective course of action for 
deterring Iran's attempts to acquire nuclear weapons and to 
dominate its neighbors, and the likely consequences of 
escalating tensions with Iran.
    Syria also poses a challenge to security in the region. 
Recently renewed violence in Lebanon is yet another example of 
the negative impact that Syria, as well as Iran, appears to be 
having on stability in the region.
    Over the last month, the CENTCOM footprint in Djibouti has 
gone from largely unknown to the newest public front in the 
global war on terror. Two recent air strikes by AC-130 gunships 
in southern Somalia have highlighted a depth of U.S. concern 
for the potential impact of threats emanating from a highly 
unstable failed state. DNI Negroponte, in fact, in testimony 
before the House Select Committee on Intelligence, said that al 
Qaeda remains determined to exploit the turmoil in Somalia.
    But, of course, the two great threats, Afghanistan and 
Iraq, are what we'll probably spend most of our time on this 
morning and what Admiral Fallon will be spending, no doubt, 
most of his time on. The rising threat of a resurgent Taliban 
and al Qaeda in Afghanistan: over the past year, there's been a 
dramatic rise in violence, particularly in the southern and 
eastern regions of the country, and military experts anticipate 
a spring offensive by the Taliban that is likely to be even 
more violent. International efforts to combat opium production, 
a major source of insurgent funding, are failing, with opium 
production in Afghanistan at record levels. U.S. and the North 
Atlantic Treaty Organization (NATO) commanders in Afghanistan 
have indicated that additional troops are needed for the 
mission; and yet, the NATO-led International Security 
Assistance Force (ISAF) remains about 15 percent short of the 
troop and equipment levels that NATO leaders have agreed to 
provide. In addition, ISAF operations are hindered by national 
caveats imposed by some NATO members on the movement or use of 
their troops in theater. The next CENTCOM Commander will have 
to work to overcome these challenges, and others, to ensure 
success in Afghanistan.
    The most daunting challenge will be Iraq. Admiral Fallon 
will be called upon to execute the President's new strategy in 
Iraq. President Bush's new approach is predominantly a military 
strategy, although Prime Minister Maliki himself has said that 
the only solution is a political solution, and that's a 
sentiment that was expressed, as well, by our current top 
commanders, General George Casey and General Abizaid.
    Admiral Fallon will have to determine how to pressure Iraqi 
political leaders to make the political compromises essential 
to a political solution. It will be most interesting hearing 
whether he intends to do so; and, if so, how. The Iraqi leaders 
made commitments about modifications to their constitution, 
taking over responsibility for security, only to break those 
commitments; and, so far, without consequences.
    Admiral, we again thank you for your tremendous devotion to 
this Nation, and your service to our Nation. We thank your 
family, as well, for their support.
    I now call upon Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you very much, Mr. Chairman.
    I join the chairman in congratulating you, Admiral Fallon, 
on your nomination in this very important responsibility and in 
these very difficult times. You bring nearly 4 decades of 
military experiences to the challenge America faces, and 
obviously your performance at PACOM is the reason why you are 
here before us today and taking on these new responsibilities.
    I think the chairman has covered the challenges that we 
face, and, while I would just like to re-emphasize, in 
Afghanistan, General Karl Eikenberry said, on January 16, 
``It's going to be a violent spring, and we're going to have 
violence into this summer.'' Obviously our attention is focused 
on Iraq, but I think that it's very clear that there's going to 
be a very difficult time in Afghanistan very soon. One of the 
areas that you are going to need to work on is to get our 
allies to participate, not only in numbers, but also in terms 
of mission. Many of our allies who are there in Afghanistan are 
so restricted in their activities that they are far from as 
useful as they can be.
    On January 10, the President proposed a new strategy for 
Iraq that has economic, diplomatic, and military components. We 
all have a new team of Secretary of Defense, senior military 
commanders, and a new Ambassador in Iraq. These are positive 
developments in a situation that can best be described as dire. 
This war has been mishandled. No one doubts that mistakes have 
been made in Iraq, and no one disagrees that the consequences 
of a failed state there are potentially catastrophic.
    Admiral Fallon, the chairman will ask you one of the 
routine questions that we ask nominees to positions of higher 
command, and that is, ``If asked your personal opinion, you 
will give a candid assessment.'' I have to tell you, this 
committee did not get candid assessments in the past. I view 
that with deep regret, because I think the American people and 
their representatives deserved better.
    I want you to emphatically assure Chairman Levin when he 
asks you that question, that you will, indeed, give us your 
candid and best assessment of the situation. Too often, 
administration officials came before this committee and the 
American people and painted a rosy scenario, when it was not 
there. Yesterday, you and I, and Senator Clinton, were in San 
Antonio, and one of the most moving experiences of my life was 
to watch these young, brave soldiers who have been so badly 
injured and made such enormous sacrifice before us in that 
audience. We owe them more and better leadership and a better 
strategy than we have provided them with in the past, Admiral.
    This is probably our last opportunity, this change in 
strategy, to salvage a very difficult situation. I hope you 
know, and will tell this committee, how difficult and arduous 
this task will be because of the hole that we have dug for 
ourselves, to a very large degree.
    I, again, congratulate you. We look forward to working with 
you. I don't think we can have a better person to fill this 
position of enormous responsibility.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Levin. Admiral Fallon, welcome again and please 
proceed.

 STATEMENT OF ADM WILLIAM J. FALLON, USN, FOR REAPPOINTMENT TO 
THE GRADE OF ADMIRAL AND TO BE COMMANDER, UNITED STATES CENTRAL 
                            COMMAND

    Admiral Fallon. Mr. Chairman, Senator McCain, Senator 
Warner, Senator Kennedy, and distinguished members of the 
committee, good morning, and thank you for this opportunity to 
appear before you.
    I'm honored by the confidence of the President and the 
Secretary of Defense in nominating me for this position, but I 
am under no illusion regarding the magnitude of the tasks and 
the challenges we face in this region of the world. From Beirut 
to Kashmir, conflict and areas of instability abound; yet, as 
you well know, this region, with some 630 million people, the 
cradle of Western Civilization, is of critical importance to 
our Nation and the world.
    Last week, General David Petraeus provided a detailed 
evaluation of the situation in Iraq. I concur in his 
assessment, and I recognize this as the top priority for 
CENTCOM attention. The situation in Iraq is serious and clearly 
in need of new and different actions.
    Earlier this month, President Bush outlined a new way 
forward for the United States in Iraq. General Petraeus 
described refocusing on the Iraqi population as the center of 
attention for security.
    The situation in Iraq will not be resolved solely through 
military means. Security is but one aspect of what must be a 
comprehensive effort to address not only this issue, but 
economic development and a reinvigorated participatory 
political process in Iraq by Iraqis. In developing these new 
initiatives, we will need major and sustained assistance from 
other government agencies, and I would welcome volunteers, 
particularly in the areas of political and economic 
development.
    The situation in Afghanistan, although much improved from 
the days of Taliban rule, is fragile. The Government of 
Afghanistan, with ISAF support, has made significant progress, 
but faces a resurgence of Taliban activity, particularly in the 
southern part of the country. Other security challenges include 
Lebanon, the Horn of Africa, with several nations facing 
internal unrest and insurgent activity. Iranian support for 
terrorism and sectarian violence beyond its borders and its 
pursuit of nuclear capability is destabilizing and troubling.
    In addressing these and other challenges in the region, I 
would, if confirmed, solicit the opinions and suggestions of 
our allies and partners in the region and the world. There is 
no doubt that other nations in the region could be helpful with 
this situation in Iraq.
    I truly believe that most people in Afghanistan and Iraq 
seek peace and an opportunity to enjoy a decent life for 
themselves and their families. It has been my experience in the 
Asia-Pacific region that progress in advancing the aspirations 
and desires of people require stability and security. American 
military forces and their civilian counterparts have been 
performing superbly in their efforts to provide these essential 
needs in Iraq, Afghanistan, and elsewhere. I am humbled by 
their service, dedication, courage, and sacrifice. It would be 
my high honor to serve in CENTCOM with these great Americans 
and our coalition partners.
    I believe the situation in Iraq can be turned around. But 
time is short. There are no guarantees, but you can depend on 
me for my best effort. I pray for God's help, and I draw 
confidence in the indomitable spirit and skilled dedication of 
our service men and women.
    Thank you for your support.
    Chairman Levin. Admiral, thank you.
    Now, the standard questions which Senator McCain has 
referred to.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Admiral Fallon. Yes, sir.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Admiral Fallon. I have not.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record and hearings?
    Admiral Fallon. I will.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Admiral Fallon. I will.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Admiral Fallon. They will.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify, upon request, before this committee?
    Admiral Fallon. I do.
    Chairman Levin. This is the question which Senator McCain 
referred to; it means a great deal to us. We're deadly serious 
about it. We are about all the questions, but this one really 
becomes more and more important as we look at the recent 
history. Do you agree to give your personal views, when asked 
before this committee to do so, even if those views differ from 
the administration in power?
    Admiral Fallon. Yes, sir, I do.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee, 
or to consult with the committee regarding the basis for any 
good-faith delay or denial in providing such documents?
    Admiral Fallon. Yes, sir.
    Chairman Levin. Thank you, Admiral. For starters, we'll do 
a 6-minute round of questions on an early-bird basis.
    Admiral, there is not just a question of 21,000 troops that 
are going to go to Iraq under the President's new policy, but 
there's also a different strategy for those troops. They will 
be holding Baghdad neighborhoods, not just inserted, not just 
clearing, but then remaining and holding neighborhoods in that 
city, presumably with Iraqi units, if they do what they've not 
done so far, which is to carry out their commitments to move 
into neighborhoods. They will be operating under 30-or-so mini 
bases in platoon- or company-sized units.
    How do you foresee preventing incidences such as recently 
happened in Karbala, where five American soldiers were abducted 
and then killed while in a meeting with Iraqi security forces 
in a supposedly secure compound? In other words, our troops are 
going to be inserted into the most difficult areas imaginable, 
right into the neighborhoods, right in the face of the Iraqis. 
How are we going to avoid the increased risks that are created 
by that kind of face-to-face presence?
    Admiral Fallon. Senator, there's clearly going to be an 
increased risk in this area. I've spoken with General Petraeus. 
I have a lot to learn, much research to do, and a lot of 
dialogue yet to go on so that I have a better understanding of 
the detail of his intentions. I believe that he's going to need 
some time, when he gets on the ground out there, to sort this 
out.
    But it seems pretty obvious to me that what we have been 
doing has not been working. We have not been getting the 
results that we desire, and we clearly have to do something 
different. There is a significant body of evidence that 
indicates that approaching an insurgency such as we are facing 
now--and that wasn't the case several years ago in Iraq, but 
it's clearly the case now--there's a body of evidence that 
indicates that to be successful in this endeavor, historically 
you've had to get in amongst the population to convince them 
that you really care about them and that you are able to 
provide security on-scene rather than just passing through an 
area.
    I can give you my experience in the Asia-Pacific region. We 
have some ongoing insurgencies in Southeast Asia, as you're 
well aware. In the Philippines, there's been significant 
progress, particularly recently. Our approach to action in the 
Philippines to combat the insurgencies that are ongoing there 
has been multipronged; in fact, very similar to what has been 
outlined for us to pursue in Iraq. It involves being down with 
the armed forces with whom we're working. In the Pacific, it's 
with the Philippine armed forces. In Iraq, we're going to have 
to get with theirs. It involves getting our people in front of 
the population so that they can see that they're engaged and 
give them confidence.
    Chairman Levin. Didn't we intentionally keep our people 
out, away from the smaller units?
    Admiral Fallon. In the Philippines, we have kept our people 
away from those small units going into combat, but an essential 
part of the security desire down there was to, in fact, engage 
with the population in a broad base of humanitarian engineering 
activities, so they actually see our people regularly.
    Chairman Levin. Was there an interface as directly, as 
intimately, in the Philippines with the population, as it true 
in Baghdad?
    Admiral Fallon. The situation is not nearly as dangerous, 
obviously, in Sulu as it is in Baghdad.
    Chairman Levin. General Abizaid testified in November that 
he has talked with all the divisional commanders, with General 
Casey and General Martin Dempsey. They all talked together. He 
asked them whether or not, if we brought in more American 
troops now, does it add considerably to our ability to achieve 
success in Iraq? They all said no. He went on to explain--and 
this is General Abizaid, just a few months ago--``It's easy for 
the Iraqis to rely upon us to do this work. I believe that more 
American forces prevent the Iraqis from doing more, from taking 
more responsibility for their own future.''
    Have you spoken with General Abizaid?
    Admiral Fallon. I've spoken with General Abizaid, but not 
on this subject.
    Chairman Levin. Do you agree with his testimony on that 
subject?
    Admiral Fallon. I don't know, Senator, but I'll give you my 
opinion and assessment. What we've been doing is not working, 
and we need to be doing, it seems to me, something different. 
General Petraeus has outlined, in extensive detail before you, 
a proposal to try to enhance stability and security in Baghdad 
and the rest of Iraq, and I would be anxious, if confirmed, to 
work with him to try and implement this. General Petraeus has, 
in our discussions, made very clear to me that this will 
require more troops. I don't know how many troops. Frankly, I 
aim to find out and have my own opinions.
    Chairman Levin. Thank you. One of the issues on the number 
of troops was the testimony that we've received about off-
ramps, that, as these brigades move in, perhaps one a month, or 
whatever the rate turns out to be, that there are off-ramps, 
that we don't have to continue that flow, if the Iraqis do not 
carry out their commitments.
    Stephen Hadley, the National Security Advisor, said U.S. 
force increases will be ``pay-as-you-go, depending a lot on the 
Iraqis performing.''
    Secretary Gates said there's plenty of opportunity before 
many of the 21,000 additional troops arrive to evaluate, 
``whether the Iraqis are fulfilling their commitments to us.''
    General Pace told us the Iraqis must ``put action behind 
their words. Our flow of forces will allow us to modify what we 
do next.''
    Now, what is the policy, do you know, in terms of off-
ramps? Is this policy subject to change, as our brigades go in, 
if the Iraqis are not carrying out their commitments, as we've 
been assured before this committee? Even General Petraeus, when 
he was here, said that he wanted all five brigades in Iraq as 
quickly as possible. He did say that. But then, he said their 
flow, not ``would be,'' could be tied to Iraqi military, 
political, or economic progress. What do you understand the 
policy to be? Could this flow change? Could it be slowed down, 
stopped, if the Iraqis do not carry out the commitment? My 
operative word there is, ``could it'' be slowed down?
    Admiral Fallon. Senator, I have not gotten into the details 
of these plans. I have a full-time job in PACOM, and I've tried 
to stay away from the details of CENTCOM until such time as I 
might be confirmed; then I intend to dive into it.
    General Petraeus, in our meeting before he left, indicated 
that he thought he needed these additional troops. I do not 
know the details of how he plans to use them. I'm sure he's 
going to have to consult with his generals on the ground once 
he gets into position, and then figure it out. I'd be happy to 
take that question and come back to you, if it's appropriate, 
at a later time.
    Chairman Levin. If you would let us know, for the record, 
what is your understanding specifically on that issue, we would 
appreciate it.
    [The information referred to follows:]

    There is no policy on troop deployment and redeployment in 
correlation to Iraqi military, political, and economic progress/
failure. Troop deployments and redeployments are based upon missions 
(requirements, needs, and conditions), the situation, the enemy, 
commander recommendations, and requests.

    Chairman Levin. I'm surprised that you don't have that 
understanding going in, frankly. This is a policy issue which 
has been decided, presumably, by the policymakers.
    Admiral Fallon. Yes, but I'm----
    Chairman Levin. Nonetheless, if you say you don't know the 
policy in that regard, we have to take that as your answer.
    Admiral Fallon. If I could, just a comment. I'm not sure 
that you can have a policy plan ahead of time that would 
dictate the intricacies of what forces move into what areas for 
what tasks.
    Chairman Levin. I'm sure that's not true, either, but you 
could have a policy which says that we can modify this as these 
brigades show up if the Iraqis have not carried out their 
commitments. Could modify.
    Admiral Fallon. Sure.
    Chairman Levin. That's certainly, it seems to me, a 
credible policy.
    Admiral Fallon. Seems pretty reasonable to me, sir. 
Obviously, as we're making modifications to what we've been 
doing in Iraq now, I would expect we'd do the same thing in the 
future.
    Chairman Levin. Senator McCain.
    Admiral Fallon. Thank you.
    Senator McCain. Thank you, Mr. Chairman.
    I want to go back to Afghanistan for a second. We have 
plans to increase our troop strength there by some 2,500. Have 
you gotten into this issue enough to have a handle on how 
serious this spring is going to be and what's going to be 
required?
    Admiral Fallon. No, Senator, I've been watching from a 
distance, just reading news reports. I have not talked with 
General Eikenberry about this, although I've asked to have him 
come back through the Pacific, on his way back home, to get a 
better insight.
    Senator McCain. What is your degree of confidence that the 
Iraqi Government and military are up to the task that we are 
now embarking on in this new strategy?
    Admiral Fallon. Critical question, particularly in the 
political arena, and I don't have an assessment of that. I have 
not personally met any of the civilian political leadership in 
Iraq. I do have some knowledge of the Iraqi military, albeit 
just a slice, from a couple of visits to PACOM base forces that 
are serving in Iraq. I was out there last month to see some of 
them. My initial assessment is that there are some good troops 
and some that need a lot of work. There are some leaders that 
have impressed me as people that understood and ``got it,'' and 
were effective, and others that are probably less so. I would 
speculate--a danger here--that that's not a dissimilar 
situation throughout the country.
    The challenge I see is identifying those leaders that are 
going to be effective, those units that are trained, or can be 
trained, to do what needs to be done and to encourage them to 
pick up the load. If this is not successful, then we're going 
to have problems.
    But all of this is a backdrop to the kind of political 
backbone and tough decisionmaking that I believe is required of 
the leadership in Baghdad.
    I think, to be fair to them, they have a tough row to hoe. 
This is not like, as you know much better than I, our country. 
In my reading, going back to 2003, we have hundreds of good 
ideas of things that we would like to see in Iraq that are more 
reflective of the kind of society and process that we enjoy 
here. It seems to me that we probably erred in our assessment 
of the ability of these people to take on all of these tasks at 
the same time. It seems to me that one of the things in the 
back of my mind that I'd like to get answered is to meet with 
the people that have been working this issue, particularly our 
ambassadors, our diplomats, to get an assessment of what's 
realistic and what's practical. Maybe we ought to redefine the 
goals here a bit and do something that's more realistic, in 
terms of getting some progress, and then maybe take on the 
other things later.
    Senator McCain. Again, we would like a realistic assessment 
of the situation. On numerous occasions in the past, witnesses 
have told us that the training and equipping of the Iraqi 
military was going just fine.
    Admiral Fallon. One of the challenges--and this is not 
unique to the situation in Iraq; I think we face it in all 
aspects of our lives--we tend to assess things in ways that 
are--you used the comment, or I think Senator Levin used the 
``rosy'' word before--in terms that will not hurt people's 
feelings, that will--whatever. The fact of the matter is, of 
all places, we need candid assessments, and you'll get them 
from me.
    Senator McCain. I believe, Admiral, that it will be 
difficult, in the short-term, to determine the progress of the 
military side of this equation. I think it's going to be 
difficult. It has taken us 3\1/2\ years, at least, to get into 
the dire situation that we are in today. But I do agree with 
Senator Levin that there are certain benchmarks that we could 
expect the Iraqi Government to comply with, such as disarming 
individual militias, the number of Iraqi military that will 
actually be deployed in Baghdad alongside ours. As you may 
remember, in the past they promised six brigades, and only two 
battalions showed up. Also legislation to ensure that the oil 
resources benefit the Sunni, as well as the Shia. In other 
words, I think that we could know fairly soon whether we are 
going to have an Iraqi government that is truly committed to 
this overall process. Would you agree with that?
    Admiral Fallon. Senator, I think there's an obvious need to 
have actions taken by the Government of Iraq to get on their--
shouldn't use the word ``timeline,'' because I've never 
actually seen a timeline, but they have stated a number of 
these objectives; you've enumerated a couple of these now--and 
it's pretty clear to me that they have to take these steps or 
we're not going to be effective in the security business. It 
seems to me that, again, from my glancing visit through that 
country last month, there is a lack of confidence among the 
other sects--other than the Shia--within this country, of the 
desire of the government to actually address issues in the 
entire country. So, it seems to me--again, from a distance; and 
this is politics--that an essential foundation to making 
progress in this country is for that government to step up and 
start making some of these tough decisions. I recognize it's 
difficult. There's a lot of baggage in the legacy, which you're 
well aware of. But unless this begins to happen, I doubt that 
we're going to be effective in the military arena.
    Senator McCain. I read, with some interest, the remarks of 
the Iranian Ambassador, the last few days, and there are many 
who think we ought to begin ``a dialogue'' with the Iranians. 
Do you have any view on that issue?
    Admiral Fallon. Senator, I think that Iranian activity, 
particularly regarding Iraq, has not been helpful, to date. I 
would welcome steps by the Iraqi government that would indicate 
that they are interested in long-term----
    Senator McCain. You mean the Iranian Government.
    Admiral Fallon. I'm sorry, Iranian Government--that would 
indicate they really are interested in helping the situation. 
To date, I haven't seen that. I think we need to see some of 
those kinds of steps, again, then over to the political and 
diplomatic arena to see what can be done.
    Senator McCain. I thank you, Admiral.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Next would be Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    Welcome, Admiral, and welcome to your family. We are very 
pleased to have you before this committee, and I thank you for 
your years of distinguished service to our country.
    I know that you are in the process of confirmation, and 
that it may be difficult to give specific answers to some of 
these questions, because you're not yet confirmed, and you 
haven't had the opportunity to really get a firsthand view for 
yourself. But, if I could, Admiral, one of the issues that 
concerns me, and, I think, other members of this committee, 
regards the lack of unity of command for the Iraqi and U.S. 
forces that will be operating in and around Baghdad. In fact, 
we've heard, from retired General Jack Keane and General 
Petraeus, their concerns about what this means. I'm having 
trouble getting to the bottom of this, because General Petraeus 
sounded somewhat surprised about it and reflected some of his 
concerns, and General Keane, who apparently was very active in 
helping to devise the plan the President has put forth, also 
said that it was very dangerous and frustrating not to have 
unity of command.
    Can you shed any light on this decision for our committee?
    Admiral Fallon. Senator, not yet, but this is clearly a 
very significant, critical item. We have to know exactly who's 
reporting to whom, for what purposes. I would expect that 
General Petraeus will have this at the top of his list when he 
gets out there. There are ways to do this but we have to make 
sure that the lines are straight if we're going to be 
effective.
    Senator Clinton. I would appreciate that. I welcome the 
openness that both you and General Petraeus have exhibited to 
the committee, and I hope that we could hear from both of you 
in short order about this. I hope we can hear that it has been 
fixed, because some of these stories coming out of the fighting 
on Haifa Street, the recent large engagement near Najaf, have 
certainly raised serious questions about the Iraqi military's 
capacity to take actions which we thought they were capable of. 
Certainly, we don't want to put our young men and women into 
harm's way with that level of confusion.
    Second, Admiral, I asked General Petraeus--this was really 
more of a plea; some have characterized it as a prayer--that we 
not send our new troops into Baghdad without being fully 
equipped and ready. There have been a number of articles in the 
last week, and there is one today in the Washington Post, about 
how equipment for the added troops is lacking. We are short 
thousands of vehicles, armor kits, and other equipment. We do 
not have the capacity to quickly turn around that equipment. In 
fact, Lieutenant General Speakes has said that we're going to 
have to be, pretty much improvising, trying to share equipment, 
which I find deeply troubling. I'm also concerned that the 
United States has agreed to sell 600 up-armored Humvees to Iraq 
this year for its security forces, and, again, quoting General 
Speakes, saying that ``such sales better not be at the expense 
of the American soldier or marine.'' Again, Admiral, do you 
know anything yet about whether or not we're going to have the 
equipment for these additional combat brigades?
    Admiral Fallon. Senator, I do not know the details of that. 
I can tell you that, in PACOM, there's been a request made for 
us to look at the equipment that we have in this region and to 
send some of it to the Middle East, equipment that might be 
appropriate to soldiers and marines that are headed in that 
direction.
    I know, from my experience, that the units are not all 
equipped in the same manner, particularly the Army units, which 
have a diverse background. Some are light infantry, some are 
heavier, and they have different types and varieties of 
vehicles.
    I found it interesting, from a professional side, when I 
was in Iraq, as I traveled around the country recently, to note 
the differences between the units. The thought occurred to me 
that it would be interesting--and I'd like to find out the 
answers of just how one goes about using these different 
equipment sets in different situations--as we rotate troops 
from one area to another, how effective they are, and so forth. 
So, I have it in the back of my mind, and would like to take 
this up with General Petraeus to do an assessment of what 
essential things are necessary to put our people in the best 
possible position. We'll do that as soon as we get there.
    Senator Clinton. I appreciate that, Admiral, and I would 
hope, perhaps, that the committee would send a very clear 
message to Secretary Gates and the Pentagon that we want that 
assessment done as quickly as possible, and that whatever 
actions need to be taken in order to provide the necessary 
equipment be done so. I know every one of us doesn't want to 
hear stories about continuing lack of equipment costing 
American lives and injuries such as those we saw yesterday when 
we were both at San Antonio.
    Finally, Admiral, this question about the diplomatic aspect 
of this assignment that you've undertaken is one that I'm very 
interested in, because we all know there's no military 
solution. There's no military solution in Iraq, and there's no 
military solution in Afghanistan. How do you see your role, and 
what tools do we have at our disposal, on the one hand, to try 
to assess and rein in Iranian influence in the region, and, on 
the other end of your AOR, to create better relations and 
working conditions between Pakistan and Afghanistan? Could you 
just briefly respond to those, please?
    Admiral Fallon. Senator, very interesting area, I wouldn't 
presume to dive too deeply into this pool yet, because I don't 
know enough detail. But a couple of observations from the 
outside:
    There's a lot that isn't being done. In fact, I see an 
awful lot of sitting, watching, by the neighborhood, and it's 
high time that changed. I would be very anxious to try to 
engage, and intend to engage, with our Department of State, 
Secretary Rice and her folks, to have a full understanding of 
this, and then maybe we can figure out, collectively, how to 
proceed.
    Regarding Pakistan/Afghanistan, having been operating on 
the other side of the boundary, if you would, between theaters, 
I've had a chance to watch the Indian/Pakistan dynamic now for 
a couple of years. I see change, and it's for the better. I 
believe that this change could potentially be very helpful to 
the situation in Afghanistan, and perhaps even in Iraq, as 
Pakistan and India slowly are taking steps to reduce tension 
along the border in Kashmir.
    By the way, it's pretty fascinating, and a shame for the 
world, I believe, to note that there are almost 1.5 million 
troops facing each other along this border. But steps are being 
taken in the right direction, and I think the potential to have 
tensions continue to ease ought to give us some opportunities 
to perhaps have the Paks do even more than they're doing. 
They've done a phenomenal amount in this war on terror, but I 
think things could be done that would be additionally helpful 
in Afghanistan. The Indian ties to Iran and their energy needs, 
and ties in other places in the region, I think, could 
potentially be exploited. I'll be anxious to talk with our 
State Department colleagues and to see what might be done in 
this area.
    Thank you, Senator.
    Chairman Levin. Thank you, Senator Clinton, and thank you, 
also, for raising the equipment issue. I just talked to Senator 
McCain, we will be sending a letter to the Secretary of Defense 
this afternoon the matter that you raise and some of the other 
equipment studies, the shortfall studies which have been 
forthcoming. So, thank you for raising that.
    Admiral Fallon. Senator, if I could put a p.s. on the 
equipment thing, there's a reality today that this is a fast-
moving issue, in that the enemy that we face, particularly in 
Iraq, is very adaptive, very skilled at observing and changing 
their tactics and procedures. So, equipment that was, we 
thought, pretty effective in protecting our troops just a 
matter of months ago is now being, in fact, challenged by some 
of the techniques and devices over there. I'm learning, as we 
go in, that this is a fast-moving ball game and we'll have to 
be adaptable to try to stay ahead of it. Thank you, sir.
    Chairman Levin. That's fine, but I think the equipment that 
Senator Clinton's talking is equipment that we know is needed 
by the troops that are going in.
    Admiral Fallon. I understand.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Thank you, Admiral. Nice to meet with you again. I've had 
the privilege of working with you and knowing you for many 
years. I thank your family for joining you on this arduous task 
ahead of you.
    I'd like to say just a word about General Abizaid. He 
served 3\1/2\ years in this position, came before this 
committee many times. There's been some suggestions that 
perhaps we have not, as a committee, received candid 
assessments from some our witnesses, and I concur in that. But 
I think, in General Abizaid's case, he has been very 
forthcoming. I think he deserves a lot of credit--and his 
family--for that contribution that he made in this most 
difficult situation for these many years.
    Clearly, in your testimony today and that of General 
Petraeus, each of you have distanced yourself from the plan, as 
announced by the President on January 20. That's 
understandable, because both of you had your respective jobs--
you, in the Pacific; he, here in the United States--and the 
plan was largely drawn up by those individuals--from General 
Abizaid, General Casey, and others--in the current positions 
that they hold. Juxtaposed against that is your own comment to 
the effect that you see there's clear requirement for new and 
different actions.
    Now, the team that put the plan together are now moving 
out, and you're moving in and being handed this plan. I just 
hope that you will exercise your authority and responsibility 
to the President and the Chairman of the Joint Chiefs of Staff 
to point out those areas in this plan which you feel needs 
flexibility, options that can be pursued other than the 
rigidity of just 20,000 new troops right into the face of 
sectarian violence. Some of us here on this committee, and 
others--a group of 10, bipartisan--have tried to respond to the 
President's request for suggestions, and we have provided those 
suggestions in the form of saying, ``Mr. President, look at all 
options by which you may not need that full complement, and, 
Mr. President, look carefully at the rules of engagement, such 
that we minimize the injection of the U.S. GI right into the 
crossfire of sectarian violence.''
    We are reading about a successful operation, north of 
Najaf, where the Iraqi forces clearly, I think, took the lead 
and eliminated a substantial enemy. That's the good news. The 
bad news is that fight was precipitated by religious quarrels 
between Iraqis, Sunni and Shia and others, that go back over a 
thousand years. Our group of 10, in making recommendations, 
simply say that the Iraqi forces, by virtue of their knowledge 
of the language, their knowledge of the culture, are far better 
qualified to try and go in and resolve that type of sectarian 
violence. I hope that you will take our suggestions in the 
spirit of not trying to embolden the enemy, but to 
conscientiously point out where we can take actions to save 
lives, and particularly those of our American GIs.
    In no way do we try to cut forces, withdraw, set 
timetables. It's simply, ``Look at the options.'' In there, we 
point out, also, the questions about the chain of command which 
was raised here by our colleague. I urge you to go back and 
look at the colloquy that I had with General Keane in this room 
last Friday in which we explored that very carefully. He, the 
former Vice Chief of the Army, clearly pointed out grave 
concerns that he and others have. I asked him, could he show 
any precedent whereby the United States forces, which always 
operated on a unified chain of command under American 
officers--have we ever tried to go into this joint operation, 
where there's going to be Iraqi commander and American 
commander at the top and all the way down to the company level? 
We do not want fingerpointing if a action goes wrong between 
the American and the Iraqi, saying whose fault it was. That has 
to be clarified.
    Finally, I point out, I think you have unique abilities to 
go into this very sensitive and equally important, if not 
greater important area, with regard to Iran. I support the 
President in his statements, of recent, of firmness of 
commitment to resolve that situation. But I say to you, drawn 
on the experience of how we maintained a ring of deterrence 
around the Soviet Union in the Cold War. I think the use of 
force in that situation is a very last resort. Should we not 
engage other countries in performing a ring of deterrence? 
Initially, that ring could be the age-old doctrine of seapower, 
what we call battleship diplomacy, the presence of our two 
carriers. Why should not the European nations send a ship or 
two to also add to the strength of the signal we're trying to 
send to that country that we're not going to permit them to go 
forward with nuclear power? I urge you to look at the history 
of NATO, its success in curtailing the Cold War, and use that 
as the initial steps to the extent that any military action 
should be used, because we have to curtail it. Does that have 
any interest or appeal to you, that concept?
    Admiral Fallon. Senator, the whole idea is most appealing, 
because we have plenty to do right now with active combat 
operations ongoing in Iraq and Afghanistan. It's clear to me 
that, to date, the Iranians have not been playing a 
constructive role in addressing any of these, and, in fact, are 
challenging us in other areas. I'll be very anxious to work 
with our allies, friends, and colleagues around the world, and 
open to any and every idea in how we might approach this 
situation.
    Senator Warner. I think it's important. I draw your 
attention to a New York Times article, of January 30, in which 
they say, ``The administration says that European governments 
provided $18 billion in loan guarantees for Iran in 2005.'' 
It's to their interest, as well as it is to the United States 
interest, to contain that country with regard to its 
aggressiveness and potentiality in building nuclear weapons.
    My time is up.
    Chairman Levin. Thank you, Senator Warner. As to the 
references made to benchmarks, I'm going to put in the record 
at this time a letter that Senator McCain and I wrote to 
Secretary Rice last week insisting that the benchmarks that the 
President referred to in his January 10 address to the Nation 
and that the Iraqi Government has agreed to be provided. If 
these benchmarks are not received by the end of today, Senator 
McCain and I will be consulting on what will be the next step 
to obtain these benchmarks. This is not something that you, 
Admiral, are going to be able to deal with. This isn't an 
assignment for you. I'm just saying publicly that these 
benchmarks now have been requested three times and have not 
been received. The letter, as well as earlier letters of mine, 
will be made part of the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Levin. I will call next on Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Welcome, Admiral. Good luck as you engage in some very 
serious and responsible challenges in CENTCOM.
    When you look at the plan that you're about to implement 
with General Petraeus, on paper it could be made to work if you 
have the right assumptions. One of those assumptions is that 
you're going to get all the support you need from the State 
Department, the Department of Agriculture, the Justice 
Department, and the U.S. Agency for International Development 
(AID). I don't think that's a very good assumption, since we 
have never gotten that, in the last 3 years. How many real 
extra bodies are going out to accompany these 20,000 extra 
troops and civilian agencies?
    Admiral Fallon. Senator, I don't know. I am aware----
    Senator Reed. Isn't that important for you to know, sir?
    Admiral Fallon. I intend to find out. It's clear that we 
will have to have agreement between the interagency on 
formulating the appropriate human resources to go address this 
problem. I do not have that kind of detail. I've not engaged in 
that conversation.
    Senator Reed. Admiral, I appreciate that, but the new 
strategy sounds a lot like the old strategy to me. We were 
going to clear, hold, and build. The President was talking 
about that 2 years ago. We had examples of this in Tal Afar and 
other places, and we were clearing. The question was, could we 
hold? Maybe we can hold now, but the build part never seemed to 
arrive.
    Admiral Fallon. Absolutely critical. If we're going to be 
successful, we have to have the follow-up economic activity and 
development to enable these people to stand on their own feet. 
It doesn't happen, then it's not going to work.
    Senator Reed. Again, General--Admiral--excuse me, forgive 
me my background. [Laughter.]
    I'm projecting. Forgive me.
    Admiral Fallon. Yes, sir.
    Senator Reed. We've gone down this road so many times. 
We've heard--and I don't think this is a question of lack of 
candor, this is a question of people saying, ``If I get all I 
need, I can do this.'' We never get what we need on the 
nonkinetic side of the equation.
    Admiral Fallon. Senator, if I could, a couple of thoughts. 
One, in my experience, we're always asking for more than we'll 
usually get, and we'll have to figure out how to do the best we 
can. But I think that the situation here is that clearly the 
President recognizes the need for change in this situation in 
Iraq. He's made some decisions. Some of those decisions involve 
military forces and leadership positions. He's asked, through 
the Secretary, for me to be considered for this position. 
General Petraeus has already been here. These are part of the 
resources being applied. I think we need--General Petraeus, 
myself, if I'm confirmed--to sit down with our colleagues in 
the interagencies and to figure out the details of these plans, 
which I am not aware, but very anxious to get into, because it 
seems to me that if I'm supposed to be the CENTCOM Commander, 
we clearly have to have an understanding and be joined at the 
hip in what we agree is the way to go forward. We are not there 
yet. We are going to need some time to figure out the steps and 
to lay this out in the kind of detail that's going to actually 
give us some results.
    Senator Reed. Let me also suggest some other areas that are 
more directly within your purview. This strategy implies a 
significant increase of translators, a significant increase of 
civil affairs officers. What we've heard, in terms of this 
surge, is 20,000 combat brigades. The question is, where are 
these translators coming from? If you're going to send--and I'd 
go back to Senator Levin's comments--you're sending a platoon 
of young Americans into the middle of the neighborhood, from 
all over this country, and they cannot speak to their 
neighbors, you're just asking for trouble. How many 
translators? Again, Admiral, out of the last 3 years, whenever 
you talked to a senior commander out there, and you ask him, 
``What do you need?''--it was never, ``Give me some more combat 
brigades.'' It's ``Give me translators, give me AID people, 
give me agriculture people.'' It was ``gimme, gimme,'' but 
nothing ever happened.
    Admiral Fallon. I'll be at the head of that list, because, 
unlike General Abizaid, I am not fluent in Arabic, and so, I'm 
going to need some help, as well. I recognize this is a big 
challenge.
    Senator Reed. As I look at this proposal, there are some 
obvious shortcomings that we know about right now and we 
haven't reconciled. Yet, we're touting this as the last best 
chance that this will work, ``We wargamed it on the ground, we 
have everything we need.'' I don't think we have everything we 
need. The issue that Senator Warner raised about unity of 
command, and General Keane, who spoke to that it is a grave 
concern. It's an obvious flaw, or an obvious shortcoming in 
this plan, we know of right now, and yet, we're embarking into 
this situation.
    I was trying to think--you might be able to help me--is 
there an applicable example of a significant urban insurgency 
that was successfully defeated with a divided command? I can't 
think--Algeria, with the French? Belfast, the British were in 
charge. I can't think of any other significant urban 
insurgencies.
    Admiral Fallon. Senator, you, better than most, understand 
the necessity for having clean and clearly recognizable chain 
of command, and if you could allow us some time to figure out 
the details of this plan, there's a lot of talk about ``the 
plan, the plan.'' In my mind, we have a plan when we have the 
details for each level in the chain of command to carry out the 
specific functions that are going to be necessary to achieve 
success. I have not even begun to see a significant outline of 
that, so I need to do some work. If confirmed, it'll be a prime 
order of business.
    Thank you, sir.
    Senator Reed. Admiral, your patriotism serving the Nation 
is remarkable. You are well qualified to assume a very daunting 
task. I would associate myself with Senator Warner's comments 
about General Abizaid. I think he, also, gave himself to the 
last measure to serve this country.
    The final point I'd make is, you need time, but time is 
quickly running out. It's not what we're doing, it's what the 
American people are doing. They have listened for 3 years, and 
they have formed very strong conclusions, which don't allow you 
much time at all.
    Admiral Fallon. I understand, sir.
    Senator Reed. Thank you.
    Admiral Fallon. Thank you.
    Chairman Levin. Thank you, Senator Reed.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Admiral Fallon, everyone's been blowing smoke at you. 
You've had a great career. You and I have fought together, for 
3 years, what I called the Battle of Vieques, and you were 
there at the time. I do believe that resulted in a lack of 
unified training that we weren't able to keep that live range 
open. I just wanted to publicly thank you for the leadership 
you showed. You had the Pace-Fallon report, and you stayed in 
there and did everything you could. I enjoyed those 3 years of 
battling on your side.
    As we look from this point forward, I think it might be 
worthwhile--no one has asked you this--you'll be working with 
General Petraeus, and you could take a number of different 
approaches. You could take the 30,000-foot view and largely 
defer to General Petraeus on Iraqi matters, or would you 
anticipate having more of a hands-on approach? How do you think 
you'll work with General Petraeus?
    Admiral Fallon. I look forward to working with General 
Petraeus. We have not had an extensive history together, but 
I've been anxious to work with him. I have followed his career. 
I've read some of his work. I think he basically has a very 
firm understanding of what's required, plus he has this 
extensive experience.
    We have different jobs and different responsibilities, 
Senator. General Petraeus is going to be our commander of the 
multinational forces on the ground for Iraq. I view my 
responsibilities as much wider than that. I have a strong 
obligation to support him and his work, and will do that to the 
maximum extent possible. But it seems to me that there's an 
expectation that I be working outside the borders of Iraq to 
try to get the neighborhood, for example, to help us, and to 
continue to work these other issues, like Afghanistan.
    I'd be looking to work in a complementary manner, but, I'll 
tell you, I'd love to stay up here, but I'm not going to 
hesitate to dive down and to ask the tough questions--love to 
stay up here, but I'm not going to hesitate to ask the tough 
questions if I don't think we're getting results, and that's 
the key thing that's missing in this entire program, of late, 
is the results that are absolutely necessary if we're going to 
be able to wrap this up and get our troops back.
    Senator Inhofe. Since we have shorter rounds than we 
normally have, for the record I'd like to have you look into 
the successes. We've been real big on the train-and-equip 
program here, and it's been very successful. I think probably 
the best model for that would have been us with the Ethiopians 
and how they came along to Somalia in a very successful 
operation. I'd like to have you think about that and maybe, for 
the record, respond as to what lessons we have learned there 
that might be worth getting into.
    [The information referred to follows:]

    The United States military has provided training and equipment to 
Ethiopia and other countries in the Horn of Africa (HOA) that have been 
integral partners in the global war on terrorism. While difficult to 
quantify, this security cooperation and the resulting strong bilateral 
relationship contributed positively to Ethiopia's operations in its 
recent military intervention in Somalia. However, it is the close 
Ethiopian-U.S. military relationship which substantiates the potential 
benefit of regional security cooperation programs (e.g. International 
Military Education and Training and Foreign Military Financing with 
Ethiopia, Kenya, and other HOA partners. The United States should 
continue to train and equip forces partnering with the U.S. in order to 
further their military's training professionalism and capabilities, 
while supporting the global war on terrorism. U.S. theater security 
cooperation programs require increased priority, emphasis, and support 
in order to promote similar successful cooperation stories, and further 
U.S. national security interests in the HOA.

    Senator Inhofe. I would also say, even though this would be 
more General Petraeus than you, but on the CERP program, 
there's been a consistency of the combatant commanders and 
everyone, from the bottom to the top, that that is a program 
where we can get a lot more for our money if we give greater 
authority in the field to use that program.
    General Keane, when he was here last week, he talked about 
the same thing, on the troop levels in Afghanistan. It's kind 
of interesting to me, because I've been over there 12 times--my 
last trip was with General Jones in Afghanistan. It was my 
clear view, at that time, that the military part of that was 
pretty near over, and now it's the rebuilding and assisting in 
that type of thing. Have you had a chance to look into where we 
are right now and to assess whether or not we do need to have--
that you would agree with General Keane that we need to have 
enhancement of the troop level in Afghanistan?
    Admiral Fallon. I don't have a fair enough assessment to 
give you an honest answer. I can give you impressions from my 
last visit. I saw things that were really good. I saw security 
in some areas that looked like it had the situation under 
control. I saw political activity. I saw functioning 
governments in some areas. But everything that I've heard from 
reports that I've read indicates that we need a pretty 
significant push now on the economic side to move this country 
along.
    Senator Inhofe. I think some of the questions asked of you 
might not be totally fair, in that you've been in PACOM. This 
is new to you. You don't have all the answers. On the other 
hand, there could be an advantage to that. You don't go in with 
a prejudiced perspective. I know when I was there, and talked 
to people like Abdul Jazim, Dr. Rubaie, and Prime Minister 
Maliki.
    Do you have any outside impression as to whether you think 
that the Prime Minister is going to change his behavior from 
the past?
    Admiral Fallon. I don't know, Senator. I haven't met him. I 
look forward to it.
    Senator Inhofe. All right. Senator Clinton brought up this 
thing about the up-armor. You mentioned something about PACOM 
might have equipment that could be used over there. The fact 
that you recognize this is a moving target, it's a changing 
game, and what was appropriate 6 months ago may not be 
appropriate now. I think it's very important that you do take 
an assessment of what is in the other commands that can be 
transferred there, and also try to evaluate what is going to be 
needed there. I think you have indicated you will be doing 
that.
    Finally, Admiral Fallon, I was critical, back during the 
Clinton administration, when I expected that the North Koreans 
had a lot greater delivery capability for missiles than 
everybody else did, and I asked--in writing, in a letter--and 
I'm going from memory now--I think it was August 20, 1998, as 
to, when would it be that the North Koreans would have the 
capability of reaching the United States with a multistage 
rocket? The answer came back: between 5 and 10 years. Seven 
days later, on August 28, 1998, they fired one that had that 
capability. Now, this morning, in the Early Bird, it says that 
North Korea and Iran are cooperating in developing long-range 
weapons, and it says Iran is likely to develop capability of 
reaching the United States before 2015. To me, that's not very 
well informed, and it wouldn't be that long.
    How concerned are you over this relationship between North 
Korea and Iran and their potential capability, in terms of 
having long-range weapons that could reach the United States?
    Admiral Fallon. Senator, I'd note that, although the North 
Koreans tried that launch in 1998, they also tried another one 
last year, still unsuccessful, which is some measure of 
consolation, I'd expect, although they appear to be pushing 
very hard to achieve this capability. There's no doubt that 
there's been an interaction between North Korea and Iran, in 
exchanging technology.
    It seems to me that the scrutiny of the world has greatly 
intensified on North Korea, particularly in this past year, and 
so, we're all watching very carefully to try to mitigate any 
attempt to proliferate technology that they may have. I don't 
know what the timelines are. I haven't studied the Iranian 
situation to the extent that I have the North Korean. The North 
Koreans are clearly threatening in their capabilities to their 
neighbors, not yet to us. We're going to have to watch it, and 
I'll be anxious to learn more about the Iranians.
    Senator Inhofe. Thank you, Admiral. My time is expired. But 
I have every confidence that the team of Fallon and Petraeus 
will be very successful.
    Thank you.
    Admiral Fallon. Thank you, sir.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Admiral Fallon, aloha and welcome to the Hill and to the 
U.S. Senate. I also want to add my aloha and welcome to Mary 
and the family here, gathered and to tell you folks that you've 
been a great family for Hawaii and for our Nation. Admiral, 
you've served us so well as PACOM Commander, and I look forward 
to your confirmation here.
    I think that it is fitting, on this day, the 145th 
anniversary of the launching of the Navy's first ironclad 
warship, the U.S.S. Monitor--that, if confirmed by the Senate, 
Admiral, you will be the first Navy admiral to command the 
United States Central Command. This speaks well of your 
leadership in the Pacific and Asia and of your accomplishments 
as an officer in our Nation's military. I thank you for your 
nearly 40 years of dedicated service already to our country. I 
also want to say thank you to Mary, too, because without her 
support, it would have been very difficult for you and for us.
    Admiral, I have some questions that I want to ask you. 
CENTCOM has never been commanded by a Navy flag officer in its 
entire history. Your nomination by the administration is, I 
guess you can look at it, somewhat unique. It raises the 
question of, why now, in the war on terror, during a time when 
we have two ground conflicts ongoing simultaneously in the 
CENTCOM AOR, is a Navy admiral the best choice to head CENTCOM? 
So, my question, Admiral Fallon, to you is, did Secretary Gates 
or any other administration officer explain to you the 
reasoning behind their decision to nominate you to be the next 
Commander of CENTCOM? If so, what was their basis? If not, why 
do you believe that you are the best choice for the job, given 
the current operational environment in the CENTCOM AOR?
    Admiral?
    Admiral Fallon. Senator, in my conversation with Secretary 
Gates, the color of my uniform wasn't the issue. I believe that 
what they're looking for is someone with experience, which I 
have been fortunate to have acquired in these 40 years, and 
someone who is already familiar with the workings of a regional 
command and the requirements of that position. We have very 
highly-qualified ground officers, Army officers, that are 
designated to lead our forces in both Iraq and Afghanistan, and 
I believe that the administration is looking for someone with 
experience and a willingness to work with these people.
    I've found, in the Pacific, that the opportunity to engage 
with nations throughout the region was beneficial to moving us 
forward in the areas of security and stability, and I look 
forward to doing the same thing in CENTCOM.
    Senator Akaka. Thank you.
    From what you've done in the Pacific--for me, there's no 
question, I'm proud of you and what you've done, and know that 
you can deal with the situations that are ahead of us.
    Admiral, the New York Times published an article on Sunday 
describing an ambitious plan outlined by the Iranian Ambassador 
to Baghdad. Specifically, Iran plans to greatly expand its 
economic and military ties with Iraq, including an Iranian 
National Bank branch in the heart of the capital. News reports 
yesterday described the President's response. Specifically, he 
was quoted as saying that, ``We will respond firmly.'' If 
Tehran escalates its military actions in Iraq and threatens 
American forces or Iraqi citizens, I'm concerned about the 
possibility of the Iraq conflict as escalating to a regional 
conflict. I am particularly concerned, because the 
administration is not engaging the Iranians in diplomatic 
discussions, which may limit our ``firm'' response to military 
options only. In this January 10 speech regarding the surge, 
the President stated that we will, ``interrupt the flow of 
support from Iran and Syrian,'' and that we will seek out and 
destroy the networks providing advanced weaponry and training 
to our enemies in Iraq. It is clear, from this committee's 
discussion with Secretary Gates and General Petraeus, that the 
U.S. does not have sufficient troop levels in Iraq to secure 
the borders from Iran and Syria while maintaining our 
counterinsurgency activities in Baghdad and Anbar.
    Admiral, do you believe that we can interrupt Iranian and 
Syrian support from within the borders of Iraq? What options do 
you believe our military has to provide the firm response to 
Iran indicated by the President without causing an escalation 
to a regional conflict?
    Admiral Fallon. Senator, as I stated earlier, I believe 
that the Iranians have yet to play a really constructive role 
in the Iraqi situation. There's a lot of history here. You're 
certainly aware of the Shia relationship in southern Iraq with 
the Iranians. Yet, from what I've read and been led to believe, 
this is not a totally onesided issue, that, in fact, there are 
many people that have historically recognized Iraq as a 
separate entity than Iran, and so forth.
    Regarding the insurgency, if we're going to be effective in 
quelling the violence and establishing some sense of stability, 
we're going to have to move to isolate these insurgents and the 
militias from their supplies of weapons and other materials. 
How we're going to do that remains to be seen, to me. I'm going 
to have to work with General Petraeus and our commanders to 
figure out how to make an effective strategy, and then 
implement this to get the results we want on the ground.
    But it seems to me, in the entire approach to Iran, that 
we'll be looking for help from the region, and to look at the 
full range of options that are open to us diplomatically and 
every other way.
    Thank you, Senator.
    Senator Akaka. Thank you very much, Admiral. My time is 
expired.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Dole.
    Senator Dole. Admiral Fallon, let me once again welcome you 
to this committee, and your family, as well, and thank you for 
your outstanding service to our country. I look forward to 
working with you in the months and years ahead.
    What do you believe are Iran's military and political 
intentions in the region, particularly regarding the Persian 
Gulf and the Straits of Hormuz? Do you believe that one of 
Iran's long-term objectives is to control the flow of oil 
through the strait?
    Admiral Fallon. Senator, it's difficult for me to ascertain 
what's in the minds of the leadership in Tehran in this regard. 
We can only make judgments, I believe, based on the behavior 
that we've seen to date. They have not been helpful in Iraq, 
and it seems to me that, in the region, as they grow their 
military capabilities, we're going to have to pay close 
attention to what they do and what they may bring to the table.
    Now, the U.S. has been, as you well know, playing a 
significant role in this part of the world for many decades. I 
believe it's in our interest to remain engaged in this region.
    My historical discussions with our allies and cooperating 
nations in this region indicate a longstanding concern about 
Iranian intentions and their influence in the Gulf. It seems to 
me that, based on my read of their military hardware 
acquisitions and development of tactics and so forth, that they 
are posturing themselves with the capability to attempt to deny 
us the ability to operate in this vicinity.
    But I would note that this is not a one-sided situation, in 
that Iran is, I believe, critically dependent on its exports of 
petroleum products for its economic vitality, and those 
exports, of course, go through the same Strait of Hormuz that 
they would potentially seek to deny us access to.
    So, it seems to me that there are lots of issues here, 
there are many things that ought to be considered as we 
approach our engagement in the region. I'll be very anxious to, 
particularly, consult with the Gulf-region nations to see 
what's new, what's learned, because it's been a number of years 
since I actually engaged in this area.
    Senator Dole. What do you consider to be the implications 
for the United States, for our allies in the region, if the 
President's latest deployment fails, if Iraq descends into 
civil war? Could you also reflect on implications for Lebanon, 
Israel, Jordan, the Gulf states, Afghanistan, and Pakistan?
    Admiral Fallon. You've given me a long list of challenges 
here to deal with.
    Senator Dole. Right. It's a broad question.
    Admiral Fallon. I believe there are relationships between 
many of these, in a number of areas. I don't know exactly what 
the timelines are, but I believe that we have a real challenge 
and very little time to start effecting results on the ground. 
But it's been my experience that if one can actually see 
results in an effort, that people tend to key in on those 
results and take heart and move forward. Nowhere has this been 
more apparent to me than recently in the southern Philippines, 
where the longtime engagement of the U.S. in helping the 
Philippine Government and the Armed Forces in trying to build 
their capabilities and in working with the population, has been 
slowly but surely gaining success, and now, with the recent 
military successes of the Philippine army, you can almost see 
this thing start to really gain momentum.
    The key thing, in my mind, is to arrest this continuing 
spiral of violence, to start making some steps in a positive 
direction, and then we'll have to assess, on a regular basis--
honestly assess where we are and see how we move forward. I 
don't think there's any magic here. I don't have any idea what 
the timelines may be, how many months or weeks it's going to 
take, but it's very clear that we have to do something 
different. We have a prescription for a number of capabilities 
that we're going to bring together, and hopefully we'll come up 
with the right recipe here to start making progress.
    Senator Dole. Let me ask you, in Afghanistan, about the 
opium trade, the profiting that's occurring, immensely 
profitable, for the Taliban, at this point, actively engaged in 
this area. Eradication, obviously, is the necessary first step, 
but it has to be complemented by other programs so that Afghan 
farmers can make a living, so that they have sufficient long-
term security to ensure that they're not terrorized into 
replanting these drug-producing crops.
    The President's proposal calls for about $10.6 billion. Is 
this sufficient to both cover the increased security issue, as 
well as the necessity of the alternative crop programs? Could 
you just comment on how you see this situation?
    Admiral Fallon. Senator, to be honest, I don't have the 
details. I will tell you that, from my most recent visit there, 
I got a sense, at least in the eastern part of the country, 
that there was a governing structure, an Afghan governing 
structure, that was in place. It was young. It was immature. 
They were keen to develop themselves in economic ways that were 
not reliant upon the drug trade. I believe this is a real 
challenge with lots of issues. There's a tradition here that 
goes back many centuries for this kind of activity. I'll be 
very curious to see what options we may have available. It 
seems to me that there's a reasonable degree of security in 
most areas, except the south, and if that's the case, then a 
strong economic injection of realistic activities would be 
what's really needed here. But I'll be happy to get back to you 
after I get a better assessment of the situation.
    Senator Dole. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Dole.
    Senator Kennedy.
    Senator Kennedy. Thank you.
    Thank you, Admiral Fallon, for your service.
    Mr. Chairman, I'd appreciate being included on the letter 
about the equipment for those that are going to be deployed 
abroad.
    Chairman Levin. We'd be happy to do that.
    Senator Kennedy. Admiral, as has been mentioned during the 
course of the questioning, Iran has become an increasingly more 
powerful player in the Middle East, but its nuclear ambitions 
and support for international terrorism are a threat to the 
regional stability and to our national security, and the 
question is what to do about it. Senator Akaka mentioned the 
President said, on January 10, that Iran is providing material 
support for attacks on American troops and that we'd disrupt 
the attacks, destroy the networks providing weapons and 
training to our enemies, and the next day we raided the Iranian 
Government office in Iraq. Last week, President Bush authorized 
U.S. forces in Iraq to kill or capture Iranian operatives 
inside Iraq. Yesterday, the President further raised the 
temperature by saying if Iran escalates its military actions in 
Iraq to the detriment of our troops and/or innocent Iraqi 
people, we'll respond firmly.
    Some have suggested that your nomination, because you'd be 
the first naval officer to hold this command, plus the fact 
that the U.S. recently sent an additional aircraft carrier 
battle group to the Gulf, might be a sign the administration is 
preparing for military action against Iran. I certainly hope 
this is not the case. Obviously, Congress must be involved in 
any decision to broaden war to Iran.
    Have you been asked to update war plans for Iran?
    Admiral Fallon. No, sir. In fact, I'm not familiar with any 
of the CENTCOM plans.
    Senator Kennedy. You'd brief the committee, the chair or 
the ranking member, if you were asked to do so?
    Admiral Fallon. Senator, I'd be happy to come back and 
answer questions you might have.
    Senator Kennedy. Okay.
    You were well known, during the years in PACOM, for 
dialogue with countries in the region. As Pacific Commander, 
you gave a speech in Beijing, where you talked about the need 
to increase our interactions with China. You said, ``If we're 
open with one another, if we share information and ideas, I 
think my experience has been, the tendency is to reduce 
anxiety, to reduce the fears of the unknown and the suspicions 
that come from lack of knowledge and doubt.'' Do you see merit 
to that approach in CENTCOM?
    Admiral Fallon. Yes, sir, Senator. To the extent that we 
can understand better the thoughts and actions of others 
reduces substantially, in my experience, the danger of 
miscalculation. So, I strongly endorse that approach.
    Senator Kennedy. Would you include Iran in that, as well?
    Admiral Fallon. I think that in the Iranian situation, I 
have to get a better assessment of exactly where we stand.
    Senator Kennedy. But you don't exclude that possibility.
    Admiral Fallon. I wouldn't exclude that.
    Senator Kennedy. Yes.
    Admiral Fallon. I'd note that, in China, for example, we 
had extensive interaction in almost every other area, aside 
from mil-to-mil, so we had a strong foundation. I'm not quite 
sure where we stand with Iran and those other areas.
    Senator Kennedy. Has the President told you not to talk to 
the Iranians?
    Admiral Fallon. He has not.
    Senator Kennedy. I think, as you point out, there's no 
dialogue--exchange of information that would seem to--we would 
lack the opportunity, I think, to get the true motivations.
    Can you tell us what is your assessment of the Iranian 
naval capabilities, and how the U.S. would neutralize these 
capabilities?
    Admiral Fallon. My understanding of their capabilities is 
that they are trying to grow an anti-access force that I 
believe would be intended to try to deny us access to the Gulf, 
if a situation arose that they might feel compelled to do that. 
We are well aware of their capability.
    Senator Kennedy. Could you elaborate a little bit on the 
anti-access? What does that mean in layman's terms?
    Admiral Fallon. They are well aware that the United States 
Navy, all of our forces--and, in fact, we operate jointly, as 
you well know, in all of our endeavors today. We have very 
strong capabilities in many areas. My read of Iranian 
investment and training activities tells me that they are aware 
of our strike capabilities, for example, they're aware of our 
aircraft carrier and submarine strengths, and that they would 
try to come up with ways to neutralize us, or keep us as far 
away as they could from the scene of action.
    Senator Kennedy. Do you believe that they have the ability 
to close the Straits of Hormuz?
    Admiral Fallon. I would be happy to take that one for the 
record. Maybe we could have that in a closed hearing.
    Senator Kennedy. Okay.
    [The information referred to follows:]

    Iran continues to spend a significant portion of its defense budget 
on naval forces. Iran's strategy in part centers on their ability to 
control and/or close the Strait of Hormuz. In addition, Iran maintains 
the capability to interdict sea lanes of communication throughout the 
Arabian Gulf and selectively target one or more Gulf countries' off-
shore infrastructure, commercial transit lanes, and anchorages 
throughout the region.
    Iran maintains a large inventory of naval mines, an expanding 
coastal defense force equipped with a mix of Chinese manufactured anti-
ship cruise missile launchers, an extensive mix of high speed fast 
attack craft equipped with torpedoes and anti-ship cruise missiles and 
at least 3,000 smaller patrol boats equipped with a mix of heavy 
machine guns, rocket propelled grenade launchers, shoulder launched 
surface-to-air missile launchers, and anti-tank guided missiles. 
Iranian leaders likely realize their naval forces cannot win a 
conventional force-on-force naval engagement with U.S. naval forces, 
and have therefore developed a strategy that uses their geographic 
advantage to put into play a layered defense strategy that relies on 
waves of near-simultaneous attacks against maritime targets to 
overwhelm the defenses of the target.
    Given Iran's current naval forces capability, Iran could attempt to 
temporarily close the Strait of Hormuz for a short period, principally 
using naval mines and coastal defense forces.
    By regional standards, Iran has a well-equipped and professional 
navy. Diplomacy and deterrence are our primary means of maintaining 
access through the Strait of Hormuz. Should our relationship with Iran 
deteriorate to the point of hostilities, we are capable of neutralizing 
the military threat to U.S. naval vessels and preserving access through 
the strait for commercial traffic.

    Senator Kennedy. Finally, Admiral, there was a reference to 
an earlier question that was about benchmarks and reaching a 
timeframe for benchmarks. Could you comment on that? Do you 
think it's necessary to have measurable benchmarks and 
timetables set, and, if those benchmarks are not met, that they 
have consequences? Or do you believe that this should be open-
ended in terms of reaching benchmarks?
    Admiral Fallon. Senator, clearly, not open-ended. I'm not 
sure that's the right term. I've heard this now for the last 
week, since I've been in town.
    Senator Kennedy. Okay.
    Admiral Fallon. We have to see progress. We're going to 
have to assess the steps. For example, the Iraqi Government has 
a significant list of actions that they have stated their 
intention to implement. I'd sure like to see some of these 
occur.
    Senator Kennedy. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Kennedy.
    I believe Senator Thune is next.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Admiral, thank you for a lifetime of service to your 
country, and thank you, as well, for undertaking what is yet 
another challenging task so vital to the security interests of 
the United States.
    During the first Gulf war, you commanded a carrier air wing 
on the U.S.S. Theodore Roosevelt. Since you've previously 
commanded combat operations in the Gulf region, can you comment 
on how you believe the CENTCOM AOR has changed since Operation 
Desert Storm?
    Admiral Fallon. First of all, Senator, the boundaries have 
changed. There are other nations now in the CENTCOM area that 
were not part of the AOR before, so it's a broader domain, 
probably more challenges, certainly more active issues ongoing 
now than were the focus of attention at that time. I will be 
very interested to getting, now, to the next couple of layers 
down to see exactly what people are thinking about and why 
they're thinking in those matters, as I get out there. But lots 
of changes, of course. There are still lots of historical 
issues that remain, from my understanding, and I'll be anxious 
to get into these and see what we can do to improve, 
collectively, the security of this area.
    Senator Thune. Do you think that an increased naval 
presence in the region will act as a force multiplier to our 
ground forces there?
    Admiral Fallon. That'll be something I'll be interested to 
find out. My understanding today is that the majority of the 
activities and the capabilities that are being used are ground. 
But I would note that I've seen news reports, have not seen any 
intelligence reports this last couple of days, but it's my 
understanding, at least from the news media assessments, that 
air support was used. The extent to which this is the case and 
what's necessary, I just don't know. I'll have to wait until I 
get there.
    Senator Thune. Do you think that the Navy can maintain a 
two-carrier presence in the region indefinitely without 
overstretching the Navy?
    Admiral Fallon. I don't know. I think I'd go back and have 
the Chief of Naval Operations (CNO) field that question. I can 
tell you that I'm an advocate of the flexibility of our forces, 
particularly our maritime and air forces, that we ought to use 
these in ways to achieve multiple goals, not just deterrence, 
which is clearly one of the objectives here, but to engage in 
the regions in which we operate, to help support our alliances 
and our relationships with people. At the same time, we gain 
valuable experience for our own people in training in different 
areas. So I think I would let the CNO handle that one, as far 
as an internal Navy issue goes.
    Senator Thune. One of the things that you had said in your 
answer to the advance policy questions regarding your 
assessment of the current situation facing the United States in 
Iraq, you stated that, ``Sectarian-motivated violence now 
inhibits political progress, effective governance, and economic 
development. Many other factors, including poor infrastructure, 
corruption, and lack of experience at governance, have 
exacerbated widespread mistrust between sectarian groups within 
Iraq.''
    Do you believe that the situation, as you've described it, 
can improve if the current security situation in Iraq remains 
as it is?
    Admiral Fallon. Unlikely.
    Senator Thune. If confirmed as CENTCOM Commander, do you 
believe that the Iraqi security forces will benefit from an 
increased U.S. troop presence, thereby helping them to secure 
Baghdad and lay the foundation for a proper withdrawal of 
American troops from Iraq?
    Admiral Fallon. Senator, I think that's a really complex 
equation, and what I am very interested in finding out is the 
extent to which these Iraqi troops are really capable and are 
willing, and have the leadership, to stand up and actually do 
the things that we would like to have them do. Numbers are 
interesting, but it's what they get for results that matter. 
So, I'll be very curious--part of the proposal, as I understand 
it, is to also substantially ramp up the number of U.S. embeds 
in training for these forces. I'm anxious, if confirmed, to 
have my own assessment of how we really stand with these 
forces. I suspect we're going to see a wide range of capability 
and competence. Clearly, the intention is to raise that level 
of competency to the maximum extent possible so that we can do 
what we really desire to do here.
    Senator Thune. It's been stated that America's commitment 
is not open-ended. What do you think the consequences should be 
if the Iraqi Government fails to step up and follow through on 
its promises?
    Admiral Fallon. I think those are questions that are 
probably best left to the political and diplomatic levels, but 
I will make a couple of observations.
    I am anxious to see the kind of demonstrated leadership 
that I believe is essential for the Iraqi Government to make 
progress with its people, but I'm also sensitive to the fact 
that this is a very challenging situation to put someone in, to 
have a nation newly emerging from decades of totalitarian 
abuse, if you would, from a leadership that was corrupt and 
very damaging to individuals and organizations.
    There is--my understanding--little in the way of tradition. 
There's very little in the history here that lends itself to 
the kinds of expectations we would like to have from a 
pluralistic democratic society. I am not a particularly patient 
man. You could probably get some verification of that from my 
staff and from my family. But I believe that in this situation, 
we're going to have to have some degree of willingness to give 
them some time. Nonetheless, we have to see some action, we 
have to get some results.
    Senator Thune. We are anxious, Admiral, to get you 
confirmed and over there so you can begin to make those 
assessments and undertake this very important responsibility. 
Thank you, again, for your service, and we look forward to 
moving you through the process.
    Thank you, Mr. Chairman.
    Admiral Fallon. Thank you, Senator.
    Chairman Levin. Thank you, Senator Thune.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Admiral, I want to congratulate you and your family for all 
the sacrifices that you've made and for this new assignment, 
and also express my condolences that you will soon be 
relocating from Hawaii, which probably the best command that 
anyone can have.
    Admiral Fallon. Yes, sir.
    Senator Webb. You have a remarkable diversity of 
experiences you are bringing to the table here. You have a lot 
of operational experience, you have time in the other building 
over there, you have a lot of experience working with Congress, 
and, most importantly, you have high-level command experience. 
I want you to know at the outset that I've been really 
impressed with the depth and the quality of your answers. I 
intend to support you fully.
    I have a couple of questions that I would like to put to 
you.
    First, you've spent a good bit of your career operationally 
deployed as a naval aviator. You know the costs of deployment 
on family life and just the wear and tear on individuals. There 
are people who are calling this situation a new strategy. I've 
said, a number of times, I don't believe that. I can't see a 
new strategy here, in terms of national strategy. What I see is 
a sort of an operational adjustment. The possibility here is 
that we're going to end up with continued deployment cycles 
until the situation can be figured out. We're working from a 
pretty fixed baseline, particularly of soldiers and marines, of 
people that are available, and units that are available, for 
these tasks. On the one hand, the increase of our troop levels, 
in the short term, is going to put additional strain on the 
Army and the Marine Corps force structure; in the mid-term, 
particularly, it is going to place a hardship on the rotational 
cycles of units, possibly even further down the line. I couple 
that with a concern that's been stated many times on the 
Foreign Relations Committee and in this committee as we've had 
these hearings over the last month, that was also stated in the 
Iraq Study Group Report, that adding more American troops 
``could conceivably worsen those aspects of the security 
problem that are fed by the view that the United States 
presence is intended to be a long-term occupation.'' So, on the 
one hand, we have the wear and tear on the troops, and on the 
other, we have the perceptions in Iraq that might actually 
cause this to be a countervailing influence. I'm wondering if 
you have any comments about that.
    Admiral Fallon. Senator, I certainly share your concerns, 
particularly regarding the impact on our forces. I've watched 
this very carefully from my current position, because we, as 
you well know, have been rotating Pacific-based forces, 
particularly Marine and Army forces, into the CENTCOM region. 
So, I stay very close to our commanders, and then make my own 
assessments, as well. While the Army and Marine Corps have 
different constructs in the way they approach their combat 
units and their people, there is a common denominator here, and 
that is the mid-level leadership, both enlisted and officer, is 
in the mode now of repetitive visits to Iraq and Afghanistan. 
There is certainly some tremendously good experience being 
gained, but I am highly sensitive to the wear and tear on them, 
and their families, in particular.
    Clearly, this is not going to be something that we would 
like to continue for an extended period of time. I will tell 
you that I'm going to watch it very closely. Again, I believe 
that the potential for success in Iraq--and I truly believe 
that we can be successful, or I wouldn't take this job--a lot 
of this depends on our ability to actually use the resources in 
an effective manner. The numbers, again, interesting, but 
doesn't really tell the tale.
    What are we really going to do with these people, and how 
are we going to measure the results, seems to me to be the real 
issue here.
    Senator Webb. You have earned a reputation, and you've 
increased that reputation over the past hour or so, as someone 
who is willing to pursue diplomatic approaches, not in the 
sense of backing away from military issues, such as deterrence, 
but as someone who's willing to work to develop the right kind 
of harmonious relationships, or at least reduce the level of 
hostility in relationships. You've done that with China, you've 
done that, to a certain extent, with North Korea. I would like 
to point out, we did engage Iran, as everyone knows, after the 
initial invasion of Afghanistan. We brought them into the 
formula when we were looking at the formation of the Karzai 
government. It also should be pointed out that the Iraqi 
Government itself is engaging Iran. You've made a few 
statements in the recent past about wanting to encourage Iran 
to play a constructive role.
    An overwhelming percentage of the people who have testified 
in the Foreign Relations Committee, and a good percentage of 
the people who have testified here, the experts on the region, 
say that, in terms of a true national strategy here, unless we 
have a robust diplomatic effort of some sort that goes hand in 
hand with what we're doing, we're not going to reach a solution 
to this problem that will increase the stability of the region 
and do the other things that we want to do.
    How are you looking at that, in terms of Syria and Iran?
    Admiral Fallon. Philosophically, I believe in having all 
the cards available to put on the table, as the potential might 
exist to play them. My approach to PACOM was to go and ask 
questions and listen extensively to every voice that I could 
find that I thought had the experience and wisdom to provide me 
some good advice before I set out on a project to try to help 
us engage in a manner that might be useful on security and 
stability. I'd like to pursue the same thing in the Middle 
East. I have a lot to learn. It seems to me that we make 
progress when we are willing to be open and to use every means 
at our disposal to try to achieve the ends. But this, of 
course, requires reciprocal actions from the other parties. I 
don't know the extent to which those endeavors have been 
undertaken in the Middle East, but I am very anxious to find 
out and to try to play a constructive role in that.
    Obviously, we have a Department of State that is the lead 
entity for diplomatic engagement with nations. We're seeing 
that play out in the Pacific, with Korea, for example. But 
there are roles that we, as military commanders, can play, as 
well, and I'll be anxious to have a conversation with the 
Secretary of State and her principals in this matter so we can 
see what the right way ahead is.
    Senator Webb. I appreciate your answers, and wish you good 
luck.
    Admiral Fallon. Thank you, Senator.
    Chairman Levin. Thank you, Senator Webb.
    Senator Martinez.
    Senator Martinez. Mr. Chairman, thank you very much.
    Good morning, Admiral. I thought I might differ with my 
colleague from Virginia on something or another, but I never 
thought I would differ more deeply than to suggest that you now 
have a hardship assignment, being stationed in Tampa, Florida. 
I want to welcome you and your family to our State, and I know, 
on behalf of Governor Charlie Crist, we're delighted that 
you'll be coming, upon your confirmation. I do trust and hope 
that, during your time there, if there's anything we can do to 
make your stay better, or your mission easier to accomplish, 
that you will not hesitate to call on us. We consider Tampa to 
be a welcoming and friendly place. I know you know our State. 
You've been in Jacksonville before, and we look forward to 
having you.
    Recently, I had the opportunity to speak to a high-ranking 
official of the Iraqi Government, in fact, a couple of days 
ago--and one of the things that he stressed with me was the 
regret of the lack of, and the need for, a security agreement 
with the United States Government, between the Iraqi and the 
U.S. Governments. Apparently, to his way of thinking, it is 
essential for there to be such an agreement in place, for the 
Government of Iraq to then fully be able to carry out the type 
of things that we anticipate that they should be doing in this 
new way forward. Are you aware of the status of that? If not, 
would you address that issue, upon taking your command?
    Admiral Fallon. Senator, I don't have any knowledge of it, 
but I'd be happy to take a look at it, if confirmed.
    Senator Martinez. Perhaps you and General Petraeus could 
look at that. I did not realize that this was an issue, but I--
--
    Admiral Fallon. It's probably not surprising, since we're 
basically starting from the ground floor and building a defense 
and security structure in that country.
    Senator Martinez. I think the concern was the lack of 
flexibility for them to be able to act and direct their own 
forces, and things of that nature.
    Admiral, turning us to Afghanistan, and, of course, to 
Iraq, as well--the Provincial Reconstruction Teams (PRTs) seems 
to be a key part of our strategy of reconstruction and 
rebuilding, which I think is so essential to political 
acquiescence, and, I think, particularly in southern 
Afghanistan, this is of great importance. I was wondering 
whether you have faith in these PRTs and this approach, and 
what you might do to enhance their success?
    Admiral Fallon. Thank you, Senator. I'll be anxious to get 
more detailed understanding of what they've been able to 
accomplish. It seems to me that it's a great idea. It looks 
terrific on paper. I've actually visited with a couple of these 
PRT entities in Iraq and Afghanistan. It seems to me that this 
is an issue, in fact, that I'd like to discuss with General 
Petraeus, because I think that the effectiveness of these PRTs 
is going to be significantly related to the degree of security 
of the environment in which they operate. If you were able to 
maximize the capabilities of the individuals that are assigned 
to these teams, then we need to ensure that they're actually 
being able to engage in the population issues that are desired.
    So, I don't have enough detail yet. I'm favorably inclined 
to this kind of a construct, and look forward to finding out 
how we're really doing.
    Senator Martinez. One of the issues in Afghanistan, of 
course, under NATO command, is the commitment of our NATO 
partners to doing all that is necessary. I know the chairman, 
in his opening remarks, touched upon the limitations upon the 
use of some of our allies forces. How will you be addressing 
that issue?
    Admiral Fallon. That's one area in which I do have 
significant experience, having worked with NATO and been a 
commander in NATO before, and spent a couple of years in the 
policy shop, working in and out of Brussels. There's some 
phenomenal goodness that's come out of the NATO alliance, and 
I'll tell you frankly that I've learned a lot from our NATO 
allies. But it is challenging to have an operational construct 
in which you have a long list of caveats that our commanders 
have to deal with. I don't know enough yet to really be making 
any public statements on it. I'll be interested to consult with 
our folks in Afghanistan. I think there's a tremendous amount 
of goodness in having the NATO nations step up and to be a part 
of the solution in Afghanistan. Exactly how we figure out how 
to optimize this contribution is probably a challenge that we 
need to undertake. But I do have familiarity with the process 
and a pretty good understanding of the background and how 
nations work together in this alliance, so I'll look forward to 
working with them.
    Senator Martinez. On the issue of Iran, I understand that 
there's been some concern raised by the President's comments; 
however, I find them to be consistent with the responsibilities 
of the Commander in Chief. I think what he said was that if 
Iran operatives are causing harm and death to our troops, that 
we will deal with them forcefully and that we will come after 
them and arrest them or otherwise deal with them. Do you find 
anything troubling about that policy? Does it immediately 
suggest some more aggressive actions against Iran, other than 
dealing with their incursions into Iraq and creating conditions 
that will cause harm to our troops?
    Admiral Fallon. Seems to me we need to take every step 
that's reasonable in the circumstances to try to provide this 
atmosphere of security and stability. The Iranian international 
behavior has drawn the attention and response from the 
international community. This isn't, I believe, just the 
President seeing a problem with this country's behavior, the 
leadership in this country's behavior. These are issues that 
I'm anxious to get a better understanding of, particularly as 
it pertains to activity inside of Iraq, and to work, to the 
maximum extent possible, to try and find the right solutions.
    Senator Martinez. Admiral, my time is expired, but I want 
to thank you for your service, your family's sacrifice, and 
your willingness to undertake this difficult assignment, and 
wish you well.
    Thank you.
    Admiral Fallon. Thank you, Senator.
    Chairman Levin. Thank you, Senator Martinez.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    Admiral Fallon, thank you. It's great to be able to listen 
to you today. I must say--you couldn't see this, because you 
were looking at the committee--when you said that you're not a 
patient man, I would describe the response of your family as a 
benign smile, which is to say, I think they agreed with that, 
but, nonetheless, continue to love you. [Laughter.]
    That's a good way to go off to this assignment. We're going 
to need your impatience here, as well as the thoughtfulness 
that you've shown the committee this morning.
    Earlier, in response to a question from one of my 
colleagues, you, I think, gave an interesting and important 
answer about the extent to which, as I heard it--and I want you 
to confirm whether I heard it right--you would be involved in 
what might be called the day-to-day command of Multi-National 
Forces in Iraq. I thought I heard you say--and, of course, 
that's General Petraeus's job; obviously, you'd be watching 
what's happening, asking questions, as presumably you would 
with General McNeill, when he takes over the NATO forces and 
American forces, because you have a lot else to do in that AOR. 
Did I hear you right?
    Admiral Fallon. I believe you did, from your description of 
my comments. I have a regional responsibility, and will be 
working hard in those lanes. I will rely on our commanders in 
the field, the subordinate commanders, to carry out their jobs. 
But I believe that's the responsibility of command to make sure 
that I understand what they're doing and how they're doing it. 
The key issue for me and for this Nation in Iraq is to be 
getting results. So, those are the kinds of questions I'm going 
to be asking and the expectations that I'll have for General 
Petraeus and other commanders are that they have a plan, they 
understand what we're trying to do, and they can show me--the 
term ``benchmarks'' has been used here--I'd like to see a plan 
of action and milestones to actually get somewhere, and I will 
be tracking those results. To the extent that I have to be 
engaged with them on a day-to-day level, I will, to assure me, 
give me the confidence so that I can come back and assure the 
leadership of this Nation that we're actually making progress 
in the endeavors we've undertaken.
    Senator Lieberman. I appreciate that answer. Personally, I 
believe it's the right one. We have good commanders on the 
ground that we've sent there. Obviously, you have broad 
responsibilities in the region. It seems to me--and I think no 
matter how we feel, particularly about what's happening in Iraq 
now here on this panel, and what we think should happen, that 
most everybody agrees that what's happening in Iraq has 
regional implications and, I would say, is part of a larger 
regional conflict playing out. So, to the extent that you have 
time to deal with that regionally throughout CENTCOM, the 
Middle East generally, which, as you've said, has always been 
an area of priority concern for American foreign policy 
interested in stability, both politically and because of the 
economic importance to our country, of oil, and now facing an 
enemy of the larger war against Islamist extremism and 
terrorism, an enemy which has, generally speaking, emerged from 
that region, I think it's critically important that you have 
the time to help our Nation make progress on those larger 
concerns.
    I want to ask this question. It has struck me, at various 
times when I've traveled around to meet our commanders on 
different commands, that, in a way that most people don't 
appreciate, PACOM from which you've come, but also CENTCOM to 
which you're going--the military leader that we put in charge 
there is, in my ways, the most prominent American 
representative in the region. Sometimes people call for a 
special representative to the Middle East. I think you're going 
to be the special representative to the Middle East. I 
appreciated, before, what you said, in response to another 
colleague's question, that you would be consulting with the 
State Department and the Secretary of State, because I think--
and I base this with appreciation on the good work, military-
to-military, but also military-to-governmental leaders in the 
region that you've done in PACOM--that you have the potential 
to help us make progress, not only in our military relations, 
but in our diplomatic relations, with our allies and others in 
the region. I just wanted to ask you whether, as you go off, 
you consider that to be one of your priorities.
    Admiral Fallon. Senator, thank you for your confidence. 
I'll be happy to play any role that would be constructive in 
this area. In the Pacific, the far Pacific and Asia are, of 
course, a long way from Washington, D.C., and so, we have the 
opportunity to engage, to a greater extent, probably than might 
be the case in other areas that are closer to the U.S.
    There's also a longstanding tradition of good work by many 
of my predecessors out there who have established relationships 
and expectations with these nations that continue to this day. 
So, it was a real joy to actually get out and visit these 
countries, and not just the military people, but their 
political, diplomatic leaders, as well, and to get folks to 
engage on issues of common concern. It's worked out there, and 
I've seen it work in other areas. I'll be anxious to do 
whatever I can, and to play as helpful a role as possible here 
in this region, as well.
    Senator Lieberman. I think there is an enormous role that 
you can play. The fact is that in many parts of the world where 
people on the ground may not have friendly thoughts toward us, 
generally, today, unfortunately, they continue to have a lot of 
respect and appreciation for the American military. Your 
ability to build on that in your relations with the indigenous 
militaries in the region, but also with the political 
leadership, I think can be very important at this critical 
moment in our relations with the command you're about to take.
    I thank you very much, and wish you all the blessings as 
you go forward with your family.
    Admiral Fallon. Thank you, Senator.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Admiral, we do all wish you well. Just the 30,000-foot view 
of things--and if you've been asked these questions before, I 
apologize--but from the big things, in terms of this new 
command that you're taking on, General Petraeus said that he 
believed that Iraq was part of the overall war on terror, that 
it was a central battlefront. Do you concur in that?
    Admiral Fallon. Yes, sir, I certainly do.
    Senator Graham. So, the outcome in Iraq would affect the 
overall war on terror positively or negatively. It's not a 
neutral event. You agree?
    Admiral Fallon. Absolutely not.
    Senator Graham. Okay. There's a debate here on the role of 
Congress as to what we should do and how we should do it, and 
that's part of democracy. General Petraeus said that a 
resolution passed by Congress disapproving of the mission that 
he's about to embark on, in his opinion, would be detrimental 
to morale. What's your opinion?
    Admiral Fallon. Senator, I think these issues are being 
discussed in the political realm, and I'd prefer to keep them 
there. I'll be honest with you, I haven't even looked at the 
wording of any of these proposals. I have a very significant 
military task to do, if confirmed, and I'd much prefer to focus 
on that activity to try to effect some results that we could 
all be happy with.
    Senator Graham. Is Iraq winnable, militarily?
    Admiral Fallon. Not militarily. But could this situation in 
Iraq be turned around? I firmly believe it can, if we have the 
engagement of the capabilities that are necessary to help----
    Senator Graham. I agree, we're not seeking a military 
victory in Iraq, we're trying to turn around the situation, in 
terms of security. That's the goal, right?
    Admiral Fallon. Security and stability, so that the 
government has a chance to stand up on its own. But this is not 
a ``do this, and then maybe you can do this.''
    Senator Graham. What would be ``winning'' in Iraq?
    Admiral Fallon. I don't know what ``winning'' is. This is 
one of the things that I'd be working with the Secretary of 
Defense and the Secretary of State to lay out, with our 
subordinate commanders. But it seems to me that what we're 
trying to do here is to give this young government an 
opportunity to be representative of its people and to govern 
this country in a manner that people could be happy.
    Senator Graham. Can I suggest what ``winning'' might be? 
That you have a stable, functioning democracy in Iraq out of 
the ashes of a dictatorship that's an ally in the war on 
terror, where women have a robust role in society? Would that 
be a good definition of ``winning''?
    Admiral Fallon. I think there are a lot of aspects there 
that would be pretty positive, sir.
    Senator Graham. Okay. Could you envision a democracy 
emerging in Iraq with this level of violence at the current 
state?
    Admiral Fallon. I would have two comments. One, clearly not 
much in the way of progress is going to occur with the current 
levels of violence and instability, but I think that we would 
probably be wise to temper our expectations here, that the 
likelihood that Iraq is suddenly going to turn into something 
that looks close to what we enjoy here in this country is going 
to be a long time coming. But, first things first. Get some 
stability and security for the people and then----
    Senator Graham. Well, that's the question. What is the 
first thing first? Is the first thing for us to start 
withdrawing, so the Iraqis will step up to the plate and do 
more? Or is the first thing to help the Iraqis get control of 
the violence so they can solve their problems politically? 
What's your view of the first thing?
    Admiral Fallon. My view is that there are several first 
things, but there's a fundamental understanding of----
    Senator Graham. Well, what's the first of the first things?
    Admiral Fallon. We have help to increase security and 
stability in that country.
    Senator Graham. That's going to take, partially, military 
involvement.
    Admiral Fallon. Sure.
    Senator Graham. Let's walk through the whole idea of the 
surge. It's on more than one front. The 21,500 troops are 
designed to help provide a better security environment 
militarily, is that correct?
    Admiral Fallon. The troops that are going in are to try to 
enable us to effect a different operational construct on the 
ground. As General Petraeus outlined in his visit here last 
week, the idea is to try----
    Senator Graham. What does that mean? We're trying to send 
more troops to help the Iraqis control the violence, with them 
out front. We're having a better ability to hold. Is that 
correct?
    Admiral Fallon. Some of the Iraqis have demonstrated an 
ability to be effective, and some have not. It's a work in 
progress.
    Senator Graham. The problem we're trying to send troops to 
correct is the ability to hold once we clear. Is that correct?
    Admiral Fallon. If we are to be effective, we have to be 
able to secure some of these neighborhoods and some of these 
areas in the country so that the processes of democracy have a 
chance to succeed.
    Senator Graham. Do you think troops being sent in can help 
accomplish that goal?
    Admiral Fallon. Yes, sir.
    Senator Graham. Okay. The other thing that we're trying to 
surge is economic ability of the country. Unemployment in 
Baghdad is at almost 40 percent in some regions. Part of the 
strategy is to create jobs so people will not be tempted to 
take money from militias to attack our troops. Is that correct?
    Admiral Fallon. Yes, sir.
    Senator Graham. Okay. Another part of the strategy is to 
have a rule of law so that any group, regardless of background, 
if they engage in actions against our troops or to topple the 
government, they will pay a heavy price. Is that correct?
    Admiral Fallon. My understanding is that aspect of society, 
government in Iraq, is very poorly developed.
    Senator Graham. So, we need to develop along three fronts: 
a better rule of law, a better economy, and a better security 
environment. That's the plan of the surge, right, on three 
fronts?
    Admiral Fallon. Senator, I think there are many tasks in 
Iraq, and the biggest challenge right now is to get the level 
of violence down, to establish baseline security that will 
enable us to move forward on some of these other areas.
    Senator Graham. You would support sending more troops to 
accomplish that goal?
    Admiral Fallon. I don't know how many troops are going to 
be necessary to effect the outcome that we want, but General 
Petraeus, in my conversations with him, communicated that he 
believes he needs these troops now to get moving----
    Senator Graham. If he said he needed more, you would 
support him?
    Admiral Fallon. I don't know, sir. I haven't been there 
yet, and I'm not in a position to make that judgment.
    Senator Graham. Well, is his judgment about 21,500--does it 
make sense to you?
    Admiral Fallon. I will better be able to give you an 
informed answer when I understand the situation better.
    Senator Graham. From the Iranian point of view, if you were 
informed, early on in your tenure here, that there was a 
sanctuary being provided by the Iranian Government for 
terrorists who are killing American soldiers and military 
personnel in Iraq, is that in our National interest to allow 
that sanctuary to continue?
    Admiral Fallon. That doesn't sound like a good idea to me. 
It's one of the things that I'll be interested in learning if I 
get the opportunity to get the intel briefs from CENTCOM.
    Senator Graham. Finally, last question, from the Iranian 
point of view, do you consider, based on what you know now, 
that the Iranian involvement in Iraq is counterproductive to 
developing a democracy in Iraq?
    Admiral Fallon. Senator, I'm not sure what the Iranian 
viewpoint is here, but it seems to me that, from my 
observations from the outside, that we have not seen a 
constructive role in Iraq from Iran. I would be interested to 
find out if, in fact, this is the case or not.
    Senator Graham. Good luck, Admiral.
    Admiral Fallon. Thank you, Senator.
    Chairman Levin. Thank you, Senator Graham.
    Senator Bill Nelson.
    Senator Bill Nelson. Admiral, you can tell by the comments 
that have been made that there is a difference of opinion on 
this committee as to the effectiveness of the President's 
decision on an additional 21,000 troops. Senator Warner 
mentioned that there are 10 Senators that have joined him. I am 
one of the 10. It is my personal feeling that the 21,000 
troops, most of which are to go into Baghdad, will not help in 
the middle of the situation of sectarian violence that we find, 
which Senator Warner correctly noted, goes back a thousand 
years. It actually goes back almost 1,500 years, right after 
the death of Mohammed, when his son-in-law split off, and that 
became the Shiite sect, born of rebellion and revenge. It's 
been going on ever since. It's going on there right now.
    I want you to know how much I appreciate your candor and 
your openmindedness in approaching this, because good 
intentioned, well-informed Senators at this table have a 
different opinion about this. Personally, I think that 
additional troops in Anbar province would help. The Marine 
generals there convinced me that it would help. But not in 
Baghdad, and certainly not 20,000. Maybe 200,000, maybe 300,000 
in Baghdad, but not 20,000.
    So, I approach my comments and my questions with that as a 
background. I also want to say that this Senator, along with 
several others, including numbers that have mentioned it here 
today, appreciate the candor with which General Abizaid has 
come to that table over and over again. Personally, I hate to 
see him step down. But he has given his full measure in a very 
difficult situation. As I said to General Petraeus, I would say 
to you, Godspeed, Admiral, as you embark on this enormously 
important duty, taking over, with the goal of stabilizing Iraq.
    I appreciate the fact that you took a risk stepping out, 
with regard to China. What can we expect with regard to Iran? 
What kind of reach-out? I know you can't answer it, but just, 
kind of, give me a flavor of your attitude as we approach this 
difficult thing and in that Baker-Hamilton Report--and, by the 
way, they are testifying this afternoon to our Senate Foreign 
Relations Committee. They said an aggressive diplomatic effort 
in the entire region, including Syria and Iran.
    But give me the state of your mind, if you would.
    Admiral Fallon. Senator, I will be very anxious to consult 
with colleagues in the Department of State and in the region to 
gain a better appreciation than I have of the situation in 
Iraq. But I believe that there are some significant 
differences, just right off the bat, in the situation I 
encountered in China. First and foremost, I believe, is the 
extent to which the relationship between the U.S. and China had 
developed on many fronts prior to my arrival. In fact, there 
were things that we were able to do in our engagement that had 
been done by some predecessors. My understanding, from this 
vantage point, of the situation in Iran is that we are not at 
that level at all. There is activity that's occurred on the 
part of the Iranian government that has been seen by the 
international community as not only not helpful in the region, 
but in the world, and particularly in regard to the potential 
to develop nuclear weapons.
    So, I believe we have to be cautious and careful in our 
approaches to this country, but I am quite anxious to find out, 
to the best of my ability, the lay of the land, and then work 
with colleagues at State to see what the best way forward is.
    Senator Bill Nelson. Thank you for your comments, and thank 
you for your openmindedness.
    I want to ask you about the training and equipping of Iraqi 
troops. I don't want to concentrate on just the number of Iraqi 
troops trained, but, rather, your assessment of how reliable 
they are. The reason I want to raise this issue with you is 
that I raised this with General Petraeus. The number, 325,000 
had been thrown out in an answer to my question from General 
Petraeus. I asked, ``Are they reliable?'' He said, ``They are 
not all reliable, sir,'' and then went on to modify and qualify 
that. Then I said, ``Well, can you put a percentage on it of 
how many of them are reliable?'' He says, ``Sir, I cannot, from 
this divide.'' Can you give us any sense of what you think that 
we would have some greater degree of comfort with regard to a 
plan that the President has of going into Baghdad, on a dual 
command structure in the operation of ``clear'' and then 
``hold,'' before you ever get to ``build,'' having the Iraqi 
army and the U.S. military side by side?
    Admiral Fallon. Senator, I'd go back, first, to a comment 
on dual command structure. I have no idea what the structure is 
that the ground commanders over there have in mind, but 
whatever it is, it has to be one in which we can effectively 
employ our forces and we have the confidence that we can 
safeguard their well-being.
    I cannot tell you, with any degree of accuracy, what 
percentage of troops, or what the numbers are, that are 
effective. I believe that this is pretty judgmental, it's 
pretty subjective, in my opinion, my experience, and it's one 
that I am very anxious to gain an appreciation for from our 
ground commanders.
    I've always been someone who felt more comfortable in 
smaller numbers of very effective capabilities than a large 
number of whatever is decorating the landscape. So, I will be 
very interested in trying to find out where we really stand 
with these forces.
    Because we're going to depend on them to carry the water. 
This is the objective here, is to turn this over to them so 
they can effectively safeguard their country.
    Senator Bill Nelson. Mr. Chairman, I want to make one other 
comment.
    It's hard for me to understand how we can come to the table 
and support a surge that is predicated on the fact of the 
reliability of the Iraqi army, when nobody can answer if, in 
fact, the Iraqi army is reliable, and that we're asking 20,000 
more Americans to go in there to fight alongside Iraqi troops, 
when we, in fact, don't know. Nobody has been able to answer. 
These are questions that Senator Warner, Senator Levin, and I 
and others have been asking.
    I'll just finish, Mr. Chairman. How would you go about 
measuring the reliability of the Iraqi troops?
    Admiral Fallon. Senator, from my experience, we observe 
them training. This is how we measure and conduct our 
assessments of our own troops. We watch them in their training, 
and then we put them in situations in which we can actually see 
them perform, and then we make an assessment of their ability 
to measure up to the expectations that we have. I would expect 
to have our commanders doing the exact same thing with the 
Iraqi forces, with an understanding that, first and foremost, 
these are Iraqi forces working for an Iraqi command structure 
and Iraqi Government. I think this is an issue in which we have 
to be a little careful, here, about putting pretty heavy 
fingerprints. Certainly, we have to have confidence that the 
security structure in Iraq is going to be able to carry its end 
of the bargain up, or clearly we're not going to be successful.
    Senator Bill Nelson. In the spirit of candor, you will come 
back to us and report on your measurement of whether or not 
they're reliable.
    Admiral Fallon. Yes, sir.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Chambliss.
    Senator Chambliss. Thank you very much, Mr. Chairman.
    Admiral, welcome to the committee today, and thank you for 
being the great soldier that you are. We appreciate your 
service to our country and your taking on this very daunting 
challenge which you have ahead of you at CENTCOM. But knowing 
that you spent--although it be a very brief time at Glenco, we 
know that you're well trained to take on this task ahead of 
you.
    Admiral Fallon. Five years in ``Albenny,'' too, sir.
    Senator Chambliss. ``Albenny,'' huh? I can tell you were, 
when you say it that way.
    First of all, let me just say that I think you're going to 
be working with another truly great American in General 
Petraeus, and this is going to be the first time in a while 
that we've had a Navy CENTCOM Commander and an Army general in 
theater. Any dynamics there that you think are advantageous to 
us, from the standpoint of having two branches represented?
    Admiral Fallon. I think you have tremendous potential for 
synergy. General Petraeus, widely respected for his expertise 
and thoughtful approach to land warfare, and I've been 
operating in a different environment, but anxious to 
collaborate in any way we can.
    Senator Chambliss. Good.
    I just have one question for you, and it really relates to 
Afghanistan. Last week, I had the privilege of meeting with the 
Assistant Minister of Defense for Afghanistan, Mr. Mohibullah. 
While he discussed the progress of the Afghan national army is 
making in growing and training their forces, he reiterated to 
me the importance of a strong and continuous commitment by the 
United States to the security of Afghanistan. At the same time, 
one of his priorities is to train and equip Afghan forces in 
order to lessen the Afghanis' reliance on U.S. forces.
    I believe that this is an extremely important priority, 
since, in the end, it's the Afghan forces who can best defend 
and secure Afghanistan, and because U.S. forces are 
increasingly stretched thin due to commitments in Iraq, as well 
as elsewhere. I'd appreciate you discussing, a little bit, how 
the United States and NATO forces in Afghanistan are partnering 
with the Afghan army to facilitate this training and equipping, 
and explain what you will do to ensure that this training 
proceeds as quickly and efficiently as possible.
    Admiral Fallon. Senator, I am also anxious to get into this 
and find out the details. I don't have the appreciation I'd 
like for this. I'm told that the Afghan national army is making 
progress, and not just in numbers, but in competence. The 
anecdotals that I hear from our people are pretty favorable. We 
have more work to do with the police, but I think I can 
understand that.
    So, I'll be anxious to see just how we're doing, and I'd be 
happy to report back to you when I have an assessment of that.
    Senator Chambliss. Thank you very much.
    Mr. Chairman, that's all I have.
    Chairman Levin. Thank you very much.
    Senator McCaskill.
    Senator McCaskill. Thank you.
    Like others, I want to thank you for your service, and 
thank your family.
    I am very aware, as I think many Americans are at this 
point, of the serious problems that we have in the area of 
acquisition and contracting in Iraq. Frankly, I sat in on a 
hearing last week in a subcommittee of this committee, where I 
realized that this problem is not limited to the conflict in 
Iraq, that there are serious and significant issues with the 
way the Department of Defense is purchasing and contracting for 
services.
    Who should be held accountable within the military when 
there is serious problems with the way money is being misspent 
or in cases of actual fraud and bribery?
    Admiral Fallon. Senator, I'm not familiar with the details 
of this issue. We hold commanders accountable. In my 
experience, the responsible individuals measure up to our 
expectations, and particularly the applicable laws and 
regulations, and, if they don't, then they pay the consequence.
    Senator McCaskill. I guess what I'm trying to get at is 
we're not in a moneymaking operation in the Government. There 
is no bottom-line pressure. We don't need to worry about 
whether we're making a profit. So, the only way we have of 
controlling the way money is spent is who's held accountable. 
I'm beginning to get information that is just, frankly, mind-
numbing about the lack of accountability within the Department 
of Defense as it relates to problems with acquisition and 
purchasing. An example of the Inspector General's (IG) warning 
that they are violating the Antideficiency Act, and then they 
did it a hundred more times, after warned by the IG that what 
they were doing, in terms of the way they were purchasing 
things, was violating the law. I understand the rub between 
urgent and compelling, and you want to go quickly and get 
necessary equipment. I think what I'm worried about is that I 
noticed, over the weekend, somebody was found guilty of 
bribery, the person who was in charge of comptroller on the 
ground with the Provisional Reconstruction Authority in Iraq, 
and evidently, a couple of Reserve officers were co-
conspirators. But when does it move up the food chain? I took 
the seat of an American figure in history that had a favorite 
saying about ``The buck stops here.'' Where does the buck stop 
for these problems? Who, within the military command, takes 
responsibility for the problems beneath their command as it 
relates to acquisition and contracts?
    Admiral Fallon. Ma'am, my experience, if I'm the 
responsible commander, I'll take responsibility for it. I don't 
know any detail of the accusations or of the issues. I'll be 
happy to try to find out. I believe that it's a key component 
of our responsibility, as leaders, to be accountable, to be 
efficient, as well as effective, with the resources that the 
American people, the taxpayers of this country, give to us. I 
think there should be little doubt in the minds of our 
commanders that they're going to be held accountable for that, 
and I'd be happy to look into it, if you'd give me some 
specifics.
    Senator McCaskill. Are you aware of any time under your 
command while you've been serving your country--so well, by the 
way, in many different capacities--are you ever aware of anyone 
under your command being found either administratively or 
legally liable under the Antideficiency Act?
    Admiral Fallon. I don't think I can answer that question 
honestly without a little bit of research.
    Senator McCaskill. Okay. As it relates to the rub, when it 
comes to that--and that is, equipment for the men and women who 
are serving us--I want to briefly tell you a true story.
    Last February, there was an article in the Monett, MO, 
newspaper about this community coming together because a young 
National Guard member who was serving in Iraq had written home 
and asked his mom to go down to the local tool and die shop. He 
said, ``Mom, we've gotten the armor for vehicles over here in 
our unit, but we don't have any tools to put them on. Would you 
see if the man that owns the local tool and die shop would send 
us the tools we need to put the armor on our vehicles?'' After 
that was published a lot of people at Monett were really proud 
of what they had done, because, of course, they sent them the 
tools to put the armor on their vehicles. My sister and I went 
down to the basement and dug out the letters from my dad, who 
served in World War II in Europe, and he wrote home for peanut 
brittle and for new socks. He didn't write home for tools to 
put the armor on his vehicle.
    With the National Guard being stretched as they are, and 
with all the stories we've read of equipment they're leaving 
behind that is no longer operable, how are we taking steps to 
make sure that we don't have these young men and women having 
to write home for the tools to put the armor on their vehicle?
    Admiral Fallon. Ma'am, all I can tell you is that, if I'm 
confirmed, I'll do everything in my power to ensure that our 
forces are the best-equipped, best-trained, and best-prepared 
to conduct the operations we ask them to do.
    Senator McCaskill. In terms of before a Guard or Reserve 
unit is sent over, is there some internal process that would 
help me understand that someone has to check off that all the 
equipment they need is ready and available before they're sent? 
Or is it, you send them and then try to figure it out later?
    Admiral Fallon. No, that's certainly not the way it is. 
There are all kinds of processes that are in place to try to 
make sure that we have the appropriate equipment and so forth. 
But I think a reality of life is that there are going to be 
many issues and many cases of desires for things, and the 
ability of the system, if you would, be it the Army or the 
other Services or the Guard, to meet those demands is something 
that has to be worked and negotiated. I think, my experience, 
one of the challenges of command is to try to determine what 
the appropriate balance is between the desire and the need. I 
can tell you from my experience, there's an endless desire. If 
I listened to all the demands that were asked of me, there's 
not enough money in the world to cover these things.
    Senator McCaskill. Sure.
    Admiral Fallon. So, you, I would hope, would rely on the 
judgment and experience of those in command to try to make the 
best determination as to where we are with these things.
    I can tell you that, if I get out into this command, I'll 
certainly be happy to be take a look at it, and would make it a 
priority, to the best of my ability, to make sure that our 
folks are as well prepared as we can make them for whatever we 
ask them to do.
    Senator McCaskill. I would appreciate it if you would try 
to follow up with the committee and with my office about the 
question I asked about violations of the Antideficiency Act and 
what accountability there is.
    [The information referred to follows:]

    While reporting and remedial action of Antideficiency Act (ADA) 
violations are the purview of the Services under title 10, I am 
committed to ensuring component commanders meet their fiscal 
responsibilities. Also, understand this committee requested ADA 
violation data from the Office of the Secretary of Defense Comptroller 
during her February 6, 2006, testimony, thus defer to her response on 
the number of violations.

    Senator McCaskill. Second, I didn't have time for this, but 
I would like to know, and, once again, this could be in a 
follow-up later. Is there a plan for what happens if this 
doesn't work, if the Iraqi brigades don't show up, if the 
police personnel don't stand up, if this is not successful--is 
there a plan, going forward?
    [The information referred to follows:]

    Adjustments to our force posture and strategy are conditioned 
based. As we identify changes to both the friendly and enemy situation, 
modifications and adaptations to our tactical plans will be made and 
should be expected. As the Iraqi's deploy forces to the Baghdad area, 
we will be able to evaluate their effectiveness and progress. 
Simultaneously, we will continually evaluate our effectiveness on the 
ground. Our contingency planning for the way forward will be based on 
such assessments and we will adjust our plans accordingly.

    Senator McCaskill. I think you've been very candid today. I 
think we all value that highly. Thank you. I think you've done 
a great job today, and I wish you the very best and safety.
    Admiral Fallon. Thank you, Senator.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Sessions.
    Senator Sessions. Thank you, Chairman Levin.
    Admiral Fallon, you've had, by all accounts, an excellent 
tenure in the Pacific. You've been out on that blue water, and 
now you have some brown sand to spend your time on. It'll be 
quite a change, I think. But your abilities are well 
recognized. You're known as a strong leader, a person who's 
willing to stand up, say what he believes, and insist that 
things happen that ought to happen, and when they should 
happen.
    I know the equipment situation is not perfect, but I don't 
believe any military has ever been better equipped, better 
supplied than this one has. In this very distant theater, and 
very hostile, and remote areas, I'm sure there have been some 
times when equipment and things were not what we needed.
    They're entitled to the best equipment, the best strategy--
that's important, a good strategy--and execution of that 
strategy. My former Deputy Attorney General in Alabama, General 
Richard Allen, a retired Army Reserve general, used to quote 
Patton as saying--I think it was like this--``A poor plan 
violently executed today is better than a good plan tomorrow.''
    What I want to tell you is that there is an intense 
interest in this area. We do not have a lot of time. When 
General Petraeus says, ``I need this kind of equipment, I need 
the State Department to do this, I need improvement on 
electricity, or I need more this or that,'' I mean, somebody 
has to get it. The time is short. This is a matter of high 
national importance, important for the national security of 
this country, our foreign policy, our credibility as a Nation, 
and our safety, that we be successful in Iraq. I still believe 
firmly that is a realistic possibility that we can achieve. But 
we don't have much time, and we don't need to wait around a lot 
of time.
    First let me ask you--I know you've talked with General 
Petraeus, and he spoke to me, and I asked him about you, and he 
was very complimentary of you. Since he's going back now for 
his third tour, he has helped train the Iraqi army. He knows, I 
assume, almost all of their leaders personally. Do you think 
you have the kind of relationship that can be effective? How 
can you help him be effective in Iraq?
    Admiral Fallon. Senator, I'll look forward to working with 
General Petraeus. We have only recently met and had several 
conversations, not nearly enough to be where we want to be, 
but, hopefully, in due course, that'll occur.
    I think we're tremendously advantaged having his experience 
on the ground. His successive tours over there, although 
clearly very demanding on himself, and, particularly, his 
family, should give him the insight to be able to pretty 
quickly assess where we are, because he's seen this now from 
several years back, the year before last, and now today. I 
would think this would be immensely valuable as we try to 
really find out where we are.
    I hope to be of assistance to him, using my experience in 
other areas and in this region of the world, as well, to try to 
put his work in Iraq in the perspective of the region. I think 
that, while he's going to be hard at work inside the country, 
working those details, I might be of benefit to him around the 
periphery to try to set the conditions that might be favorable 
for him to execute his actions inside the country.
    Senator Sessions. I think that's a good answer, and it has 
potential to be a good relationship, and I hope that you will 
work on that.
    Senator Reed and, I think, a number of Senators on both 
sides of the aisle, have been concerned about the interagency 
process. In one of our briefings, I asked, about the State 
Department, who's in charge of economic development, and the 
answer is the State Department. Who's in charge of 
infrastructure improvement? The answer, fundamentally, is the 
State Department. Who's in charge of intergovernmental 
relations? The answer is the State Department. Who's in charge 
of building a court system? Justice and State. Who's in charge 
of a lot of these things? Other departments and agencies. All 
of those matters I just mentioned, would you not agree, are 
critical to a stable and peaceful Iraq--improvement in those 
areas?
    Admiral Fallon. Senator, of course. We need to make 
progress in each of these areas. I can tell you, from my 
experience in the Pacific, we had what I consider a terrific 
working relationship with the Department of State--with our 
Ambassadors in the region, with Secretary Christopher Hill, the 
East Asia Pacific Assistant Secretary. We worked issues every 
day, from a regional perspective, individual ambassadors 
working within the countries, to try to work with each other to 
set the conditions to enable us to be successful. I could 
probably spend half an hour on that.
    Senator Sessions. I'm not demeaning the State Department.
    I'm just talking about this problem. You're going in an 
area, and we need things done now. We don't need to be waiting 
for months and months to get negotiations and go through some 
bureaucratic process to get a power plant in some area of Iraq 
that's critical to gaining stability for the local mayor, who 
wants to be on our side, and we have to ask it, and it goes 
around, and, a year later, it occurs. I'm pretty worried about 
that. Frankly, the State and the other departments, who also 
need to contribute more, are having a hard time getting people 
to come. They're not as willing to go out in dangerous areas as 
the military is. So, I think some of the matters need to be 
turned over to the military, more than perhaps in the past, and 
that the other agencies of our Government need to be more 
responsive to the legitimate needs of our soldiers, who are 
placing their lives at risk.
    Are you willing to use the courage and determination that 
you're famous for to stand up for our soldiers there, to make 
sure this whole interagency process works, and, if need be, 
call the President of the United States? He's in charge of this 
thing. He's the one that can direct any agency to do anything 
to make these things happen.
    Admiral Fallon. Yes, sir, and I believe he's anxious to do 
whatever is necessary to enable us to achieve success. We're 
going to work this, hard. Recognize the need to have these 
folks, but also recognize that the military is an expeditionary 
organization, we're geared to working overseas and at long 
distances. The Department of State certainly is not, except in 
their ambassadors. But I recognize the issue. We're going to do 
everything we can.
    Senator Sessions. It's something to work on. But, for 
example, if you conclude that we need 2 to 3 times the number 
of prison bed spaces as I believe we do in the immediate 
future, and probably 5 to 10 times in the long term, will you 
push the bureaucracy to get moving on it? Because, truthfully, 
we have a catch-and-release policy there now, catching 
dangerous people and releasing them, because there's no way to 
get them housed. Are you willing to take an aggressive action 
on that if need be?
    Admiral Fallon. You bet, sir.
    Senator Sessions. You've also confronted the question of 
missile defense in the Pacific with North Korea. Now we see the 
danger with the Iranians, who move that up. I think you've said 
that our defenses for missile defense capabilities should keep 
pace with the threat. It seems that the threat is stepping up 
its pace. Do you think that we need to keep pace with that as 
we develop our defense budgets?
    Admiral Fallon. Yes, sir, Senator. I believe we need to 
stay ahead of the power curve, and I believe we've made 
substantial progress in this country, in the past year, in 
missile defense. We might want to discuss that in a different 
setting. But there's been a lot of progress made, and a lot of 
lessons that we've learned in the Pacific, that I think would 
be applicable here, in other regions of the world, as well.
    Senator Sessions. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions.
    We'll have a 3-minute second round.
    Admiral, in the advance policy questions, you were asked, 
``What do you believe will induce Iraqi political leaders to 
make the political compromises necessary for a political 
solution?'' What leverage does the U.S. have in this regard? 
Your answer, ``Current levels of suffering experienced by the 
Iraqi population should motivate the political leaders to make 
progress.''
    Admiral, that hasn't happened. They've had 3\1/2\ years-
plus of suffering. It hasn't motivated the Iraqi political 
leaders to make the compromises, which everybody says are 
essential to be made if there's going to be an end to the 
violence. I don't know of anybody, no matter what side of this 
issue they are, or who does not say there must be a political 
solution if there's going to be an end to the violence. The 
Iraqis have not reached those political compromises. It seems 
to me what pressure will be put on them and will make them 
reach those compromises is the issue which divides so many of 
us. But I don't think your answer, frankly, is satisfactory, 
``The suffering experienced by the Iraqi population should 
motivate the leaders.'' Of course it should, but it hasn't. So, 
my question is, what other leverage, since that hasn't worked, 
does the U.S. have in this regard?
    Admiral Fallon. Senator Levin, you're aware that the Iraqi 
Government has outlined a series of steps that have been called 
benchmarks in some quarters----
    Chairman Levin. Most of which they've not taken.
    Admiral Fallon. --and they need to take these steps.
    Chairman Levin. But what's the leverage?
    Admiral Fallon. We need to hold them accountable.
    Chairman Levin. How?
    Admiral Fallon. By, I believe, having a very firm dialogue 
with the leadership. Some of that, I believe, has already 
occurred. We have given them some time----
    Chairman Levin. What are the consequences if they fail 
again?
    Admiral Fallon. If there's no progress, then I don't 
believe we're going to be successful in the military actions. 
There has to be a commensurate movement forward in political 
background that's going to give these people the confidence 
that they can actually effectively move forward as a country.
    Chairman Levin. How important, Admiral, are clear, real, 
significant consequences on the Iraqi politicians if they fail 
to keep these military commitments, political commitments, and 
economic commitments? Must there be clear, real, significant 
consequences that they understand will follow, if they continue 
to fail to keep their commitments?
    Admiral Fallon. Senator, I believe that there will have to 
be a firm understanding that we are not in an open-ended 
situation where we're just going to sit around and wait forever 
for things to happen. But I also believe that it's not going to 
be particularly constructive right now to tape an edict of a 
number of actions and give deadlines. I believe in giving them 
some time. How much time? I don't know. But time is running 
out. Clearly, I think there's a pretty broad understanding, 
certainly in my mind and others that I've talked to, that they 
are going to need to take actions.
    Chairman Levin. Let me just ask if you agree with General 
Richard Zilmer, who's the commanding general of our Multi-
National Force-West in Iraq--a Marine general, and head of the 
1st Marine Expeditionary Force. He responded to a question the 
other day about the impact on morale of discussions of various 
resolutions in the U.S. Senate. I'm not asking you to comment 
on the resolutions. You've indicated, I think, very properly, 
may I say, that you're not going to get involved in the 
political side of the debate. You're going to focus on the 
military missions. Here's what he said, though, about morale, 
which is very much a matter within your concern. He was asked, 
``Is there an impact on morale about these--all these debates 
that are going on?'' ``Well,'' he said, ``between television 
and all the rest, and the Internet--marines, sailors, and 
soldiers, they know what's going on, not only in the United 
States, but around the world, so they have an opportunity to 
see and view the news, as anyone else does.'' He said that, 
``Yes, we understand there's a debate back home about the 
direction of the war and where it's going.'' He says, ``But the 
morale remains very high out here. Our marines understand what 
their mission is. We watch what happens back home, but I'm not 
concerned about losing sight of the focus.'' Then he said, 
``I'm very comfortable that, despite the debate that goes on 
back there, our folks over here are staying true to the 
mission.''
    Have you heard anything to the contrary?
    Admiral Fallon. I'm not familiar with that statement. I can 
only tell you, Senator, what I observe from my interaction with 
our forces there. As General Zilmer is said to have indicated, 
they are very focused on their mission. I think the things that 
affect their morale most directly are their confidence in one 
another, in the training they've received, and, most 
importantly, their ability to be successful in their mission. 
If they feel that they're actually making progress, then their 
morale is going to be good. If they feel that they are being 
given necessary tools to accomplish their mission and--be they 
equipment and otherwise--if they feel that they're being led by 
competent, responsible leaders, then their morale is going to 
be good. So, my observation was that, in most of the places 
that I visited, my assessment was that our people were feeling 
that they had the tools and that they were working hard. I 
think it's our responsibility, as leaders, to give them these 
necessary capabilities so that they can be successful.
    Chairman Levin. Thank you, Admiral.
    Senator Warner.
    Senator Warner. Thank you very much, Mr. Chairman.
    Admiral, I looked at your distinguished biography and the 
sentence in here, ``Admiral Fallon began his naval aviation 
service flying in an RA-5C Vigilante with a combat deployment 
to Vietnam.'' That was about the time that I was in the 
Pentagon, as you recall, and you were a young lieutenant JG 
about that time?
    Admiral Fallon. Yes, sir.
    Senator Warner. Both of us remember very clearly the tragic 
circumstances here at home of the American public pulling back 
of giving the support of the people to the men and women of the 
Armed Forces. I think it was misfortune. A lot of your 
generation, when they got back home, having served courageously 
and at enormous sacrifice, did not return to the welcome arms 
that they were entitled to. Today, it's quite different. I find 
the American people are solidly behind our uniformed members 
and their families, the greatest respect and the heartfelt 
feelings for the losses and the sacrifices, and the respect the 
families have for what their servicepersons are doing. So, it's 
a changed situation. But I think it's essential that we 
continue to work with the American public so that they better 
understand what are our goals, and are they realistic, and how 
those young people are going to be employed in the new 
strategy.
    Today, I have to say, with the greatest respect--I've been 
privileged here, with my dear friend Carl Levin, 29 years on 
this committee, with many officers coming before us in 
engagements of our forces overseas and the problems associated, 
and when I add that to my own years in the Pentagon, having 
been associated with fine persons like yourself, it's a 
continuing learning experience for me. I learn greatly from 
each day of the association with the men and women in uniform. 
My sincere respect and affection for them is just there, and 
always will be. But the point I wish to make is that I think 
you've handled yourself today with a seasoned wisdom that 
you've gained through these many years, and you very carefully 
stuck to the role of a military professional, and, no matter 
the questions that were put to you, no matter the political 
differences we have--and I respect my colleagues on both sides 
of the arguments--you steadfastly did not let yourself get 
entrapped into that political discussion. You clearly impressed 
upon this committee, and, indeed, the Senate, and, I think, the 
public that have followed this hearing, you're going out to 
this job with the experience we need for that new CENTCOM 
Commander, with an open mind and a willingness to look at all 
aspects of it and to recognize that the buck stops on your 
desk, no matter how many fine subordinate commanders you have--
the buck stops on your desk. You've shown the flexibility, the 
openness of mind, to look at the plan as it now is, and to 
decide what is best to achieve the mission.
    As I say, my concern is on this question of the unified 
chain of command, not departing from time-tested tradition. My 
concern rests with the American GIs being injected into these 
situations which go back, as we say, 1,400 years in 
disagreements. I have no disrespect for the Muslim religion, 
but it is hard to understand and follow, and how, today, Muslim 
is falling upon Muslim with the animosity and the bitterness 
that leads to the killing and the instability.
    I wish General Petraeus the very best. I'm reassured by 
your coming as the overall boss, that you will infuse into your 
command that seasoned wisdom that you have, and that, together, 
collectively, you can work on this plan and try and make it 
work, but make it work in such a way as more and more 
responsibility goes to the Iraqis, as recommended by the Baker-
Hamilton Commission. I do hope that you've had an opportunity 
to look through this. Their reports, and what they're done, and 
how you assess particularly their recommendations with regard 
to the diplomatic offensive that we have to take in that 
region, bring those countries of that region together, because 
the adverse effects--and I totally agree with the President--a 
loss of this situation will implode that region into such 
strife that it will impact not only the region, but the entire 
world, and peace, stability, and the ability of the free 
nations to do what we can to eliminate this terrorism, which is 
on the growth, unfortunately, and spreading.
    I wish you well, but I would just want to remind people 
that you bring to this office--and I commend the President for 
selecting you--the depth of wisdom that you've exhibited here 
today, and you will work with your commanders to get the 
violence down, but hopefully to do it in such a way that more 
and more of the Iraqis take the lead--that's a phrase we 
haven't heard in this debate--take the lead, which means 
getting out there in front. They understand the language, they 
understand the culture. Our youngsters are doing the best to 
support them to take that lead. To that extent, I hope we could 
lower the level of Americans involved directly in that Baghdad 
situation. There are 6 to 7 million people, and there's only so 
much a military force of an additional 20,000, if we have to 
put the whole complement in there, can do together with the 
Iraqis, unless the Iraqis step up and continue to augment their 
participation.
    We have trained, over a period of 2\1/2\ years, at an 
enormous expense to this country, upwards of 200,000 of these 
individuals. What perplexes me, why they can't take over the 
principal responsibility, and that our rules of engagement can 
be drawn up in such a way as if they're charged with the 
sectarian violence. In al Anbar, our resolution says, ``Mr. 
President, you're correct, full force,'' because there we're 
engaged with al Qaeda, the very organization that precipitated 
the problems that we're experiencing in that region today.
    I thank you very much, but, Mr. Chairman, I believe this is 
an opportunity for our committee to get on record your concerns 
about a very important development in our overall national 
security, and that is now the recognized capability of China to 
interdict satellites above. We have a tremendous dependence on 
the use of our satellites for a variety of reasons, and now 
there's concrete evidence that they have the capability, from a 
ground station to that high altitude, to bring down and 
incapacitate those missiles. Those hearing devices that we have 
up there, the platforms that are so essential to our overall 
security--can you just give us a general assessment of that 
situation and how best we are going to cope with it in the 
future?
    Chairman Levin. I wonder, Senator Warner, if he could do 
that for the record, because we are at the tail end of a vote 
here now, and I want to give Senator Sessions a few minutes.
    Senator Warner. Well, I guess you're right.
    [The information referred to follows:]

    As you are no doubt aware, China's action evoked strong protests 
from other countries with space-based assets, and rightfully so. This 
event is being perceived as a major setback for international space 
cooperation which over the years has yielded enormous benefit to the 
world in the commercial and scientific arenas. Unfortunately, this 
event is reminiscent of the ``Cold War'' thinking that fueled the arms 
races of that period of history and is counterproductive to future 
cooperation programs and objectives. How we should react to this 
development must be decided upon after intense national-level study and 
in collaboration with the international community.

    Senator Warner. Could I impose, Mr. Chairman, by suggesting 
that your letter that you received from the Secretary of State 
on the matter of benchmarks--I'm all in favor of benchmarks, 
but if we try, here in Congress, to legislate too many 
benchmarks, really beyond the assessment of the Secretary of 
State, who has the principal responsibility, we could force 
this Government to go tilt, and we'd better know what's going 
to take their place if it goes tilt, because I'm not one to 
sign on to this as the last step, this augmentation in Baghdad, 
the last chance. I come back to the President's phrase, ``We 
cannot let this region implode.'' So, if, for some reason, this 
program in Baghdad is not successful, we have to press on with 
some other program, and I hope that we don't gravitate--
Congress--to such a detailed outline of benchmarks and the 
consequences--there should be consequences for failure, but I 
don't want those consequences so heavy that they could 
literally topple this government, because we don't know what 
might come along and replace it.
    Chairman Levin. We'll have more to say about the Secretary 
of State's letter later.
    Senator Sessions.
    Senator Sessions. Thank you.
    Admiral Fallon, as I understand the difficulty we have in 
Iraq in achieving a political settlement which ultimately what 
we need and will be essential, as Senator Levin has so ably and 
often pointed out, but sometimes it's hard to reach an 
agreement if one side or the other feels like they're winning 
or making progress through violence and military action. 
General Keane suggested that some intelligence indicated that 
the Sunnis thought they were prevailing, that they were 
winning. Then it's hard to negotiate, is it not, with them? 
That to really achieve a negotiated political settlement in 
which this new government participates in an effective way, we 
have to have a certain level of security and stability for that 
to occur in. Is that sort of the challenge we have here?
    Admiral Fallon. Senator, you know certainly better than I 
that the business of politics is about compromise. The level of 
violence, particularly recently, in Iraq, I can't believe that 
this is encouraging any one of the factions to think that 
they're winning, because clearly people are losing lives and an 
awful lot of blood and treasure along with it.
    If this endeavor of a pluralistic democratic entity in 
Baghdad is going to survive, it's going to require political 
courage and leadership, I believe, to stand up and make 
decisions that can be helpful to people. It's going to be 
tough, because they all have baggage. The degree to which any 
of them believes they're winning now is pretty much of a 
stretch.
    Senator Sessions. It's obvious, from our perspective, 
they're all losing, the whole country and the region is losing, 
and it's sad, beyond belief. But insurgencies oftentimes are 
willing to persist for years, as long as they think they are 
making some progress toward goals. All I'm saying to you is, 
you have to have somebody to negotiate with, you have to have 
somebody to have agreements with, and if they're now prepared 
to sit down with you and negotiate effectively, I'm not sure we 
need to blame it all on the existing government and the Shia 
majority, when they are being consistently attacked by the 
Sunni/al Qaeda/Baathist group. That's why my understanding is 
that we have to maintain a military presence now to try to 
stabilize the area so these negotiations can occur.
    Admiral Fallon. Yes, sir. There's lots of bad and lots of 
blame to spread around. My suggestion would be--if I were in a 
position to have a discussion with the leaders in Iraq--would 
be to do their best to leave as much of the past behind and 
just focus on the potential and the consequences if they fail 
to take this opportunity and step forward.
    Senator Sessions. I think that's correct. Of course, I 
believe, in Colombia, for example, it became pretty clear that 
oppressing the Revolutionary Armed Forces of Colombia 
aggressively with military force was the only way that it was 
going to reach some sort of peaceful settlement in Colombia. I 
think they've made progress by increasing their military 
effort. We wish that wouldn't happen, we wish we could talk our 
way out of all of these things, but sometimes people are so 
determined that it takes military force, unfortunately.
    Thank you.
    Chairman Levin. Thank you, Senator Sessions.
    Admiral, thank you. We wish you all the best. We thank you 
and your family. We will hope, now, that we'll be able to 
report this nomination quickly and get this to the floor. 
You're well qualified. I think all have expressed our support 
of you. Your candor and your objectivity is important to us. 
We're going to continue to rely and count on that. We just wish 
you the best of luck.
    Admiral Fallon. Thank you very much, Senator.
    Chairman Levin. The hearing is adjourned.
    [Whereupon, at 12:27 p.m., the committee adjourned.]

    [Prepared questions submitted to ADM William J. Fallon, 
USN, by Chairman Levin prior to the hearing with answers 
supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    If so, what areas do you believe might be appropriate to address in 
these modifications?
    Answer. I have no recommendations for amending Goldwater-Nichols at 
this time. However, if confirmed, I would not hesitate to offer 
proposals in the future that I would consider helpful.
    Question. Do you believe that the role of the combatant commanders 
under the Goldwater-Nichols legislation is appropriate and the policies 
and processes in existence allow that role to be fulfilled?
    Answer. Yes.
    Question. Do you see a need for any change in those roles, with 
regard to the resource allocation process or otherwise?
    Answer. No.

                             RELATIONSHIPS

    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the combatant commands. Other 
sections of law and traditional practice, however, establish important 
relationships outside the chain of command. Please describe your 
understanding of the relationship of the Commander, U.S. Central 
Command (CENTCOM) to the following offices:
    The Under Secretaries of Defense.
    Answer. Commander, U.S. CENTCOM coordinates and exchanges 
information with the Under Secretaries of Defense as needed to set and 
meet U.S. CENTCOM priorities and requirements for support.
    Question. The Assistant Secretaries of Defense.
    Answer. Commander, U.S. CENTCOM coordinates and exchanges 
information with the Assistant Secretaries of Defense as needed to set 
and meet U.S. CENTCOM priorities and requirements for support.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman is the principal military advisor to the 
President, National Security Council, and Secretary of Defense. Section 
163 of title 10, U.S.C., allows communication between the President or 
the Secretary of Defense and the combatant commanders to flow through 
the Chairman. As is custom and traditional practice, and as instructed 
by the Unified Command Plan, I would normally communicate with the 
Secretary through the Chairman of the Joint Chiefs of Staff.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. I would communicate with and coordinate with the Vice 
Chairman of the Joint Chiefs of Staff as required and in the absence of 
the Chairman of the Joint Chiefs of Staff.
    Question. The Director of the Joint Staff.
    Answer. I would also communicate and coordinate with the Director 
as necessary and expect the Deputy Commander, U.S. CENTCOM or Chief of 
Staff, U.S. CENTCOM would communicate regularly with the Director of 
the Joint Staff.
    Question. The Secretaries of the Military Departments.
    Answer. The Secretaries of the military departments are responsible 
for the administration and support of forces assigned to the combatant 
commands. Commander, U.S. CENTCOM coordinates closely with the 
secretaries to ensure that requirements to organize, train, and equip 
CENTCOM forces are met.
    Question. The Service Chiefs.
    Answer. Commander, U.S. CENTCOM communicates and exchanges 
information with the Service Chiefs of Staff to support their 
responsibility for organizing, training, and equipping forces. 
Successful execution of the U.S. CENTCOM mission responsibilities 
requires close coordination with the Service Chiefs. If confirmed, I 
intend to work closely with the Service Chiefs of Staff to understand 
their service capabilities and to effectively employ those capabilities 
in executing the U.S. CENTCOM mission.
    Question. The other combatant commanders.
    Answer. Commander, U.S. CENTCOM maintains close relationships with 
the other combatant commanders. These relationships are critical to the 
execution of our National Military Strategy, and are characterized by 
mutual support, frequent contact, and productive exchanges of 
information on key issues.
    Question. The U.S. Ambassador to Iraq.
    Answer. I would necessarily have a close working relationship with 
the U.S. Ambassador to Iraq in order to ensure unity of effort between 
U.S. military and all other U.S. Government activities in Iraq.

                             QUALIFICATIONS

    Question. If confirmed, you will be entering this important 
position at a critical time for the U.S. CENTCOM.
    What background and experience do you have that you believe 
qualifies you for this position?
    Answer. I have benefited from a broad range of assignments during 
my nearly 40 years in uniform, from tactical to operational command, 
and have considerable experience with joint and coalition operations, 
including combat operations. I was privileged to command Carrier Air 
Wing Eight in U.S.S. Theodore Roosevelt in 1991 during Operation Desert 
Storm. In 1995, as a flag officer, I served as Commander, Carrier Group 
Eight and Commander, Battle Force, U.S. Sixth Fleet during North 
Atlantic Treaty Organization (NATO) Operation Deliberate Force in 
Bosnia. During these operations, I worked closely with joint U.S. and 
combined forces in planning, coordinating, and executing sustained 
combat operations. I also served as Deputy Director for Operations, 
Joint Task Force Southwest Asia in Riyadh, Saudi Arabia, directing air 
operations in the Iraqi No-Fly Zones. I have additional experience in 
joint and combined planning and operations at both the operational and 
strategic levels through assignments as Assistant Chief of Staff, Plans 
and Policy, for the NATO Supreme Allied Commander, Atlantic and as 
Deputy Commander and Chief of Staff for the U.S. Atlantic Fleet and the 
former U.S. Atlantic Command, the predecessor to U.S. Joint Forces 
Command. For nearly 3 years, I served as Commander, U.S. Second Fleet 
and NATO Striking Fleet Atlantic, working directly with all U.S. armed 
services as well as those of our NATO allies in training and in 
developing and testing joint and combined tactics for the entire 
spectrum of combat operations. As Vice Chief of Naval Operations from 
2000 to 2003, I worked in close cooperation with OSD, the Joint Staff, 
and the other armed services developing transformational strategies and 
joint requirements. As Commander, U.S. Fleet Forces Command and U.S. 
Atlantic Fleet from October 2003 to February 2005, I served as Naval 
Component Commander to U.S. Joint Forces Command, and supported U.S. 
Northern Command and U.S. Strategic Command. In my current assignment 
as Commander, U.S. Pacific Command (PACOM), I have gained extensive 
experience in the largest combatant command AOR, with more than 60 
percent of the world's population and four of the five largest economic 
GDPs. This area has presented several challenges, including the 
maintenance of sensitive alliances, insurgencies in southeast Asia, the 
situation in North Korea, and the U.S. relationship with the People's 
Republic of China. The widely varied opportunities I have had during my 
career have given me a deep appreciation of, and experience with, all 
branches of our Armed Forces, the interagency, and many of our allies 
and partners.

                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges confronting 
the next Commander, U.S. CENTCOM?
    Answer.

        <bullet> Combatting the insurgencies in Iraq and Afghanistan 
        and directing the restoration of security and stability in 
        these nations.
        <bullet> Countering the extremist threat which destabilizes 
        governments in the region, commits attacks on the U.S. and 
        numerous other nations, and continues to threaten the U.S. 
        Homeland.
        <bullet> The relationship with Iran and its support to 
        insurgents and destabilizing activities in regional nations.
        <bullet> Protecting vital lines of commerce in the region.
        <bullet> Continuing instability and humanitarian crises in 
        Africa.

    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Specifically, I intend to:

        <bullet> Support U.S. national interests and policies.
        <bullet> Work closely with our ambassadors and military 
        commanders in Iraq and Afghanistan to address the critical need 
        for security and stability in these countries.
        <bullet> Work in close consultation with U.S. agencies and 
        military commanders, and with our friends in the region to 
        develop a clear understanding and appreciation of U.S. national 
        interests and the issues facing the Nations in the U.S. CENTCOM 
        region.
        <bullet> Signal the strong resolve of the United States to 
        protect its national interests and to enhance regional 
        stability.
        <bullet> Posture U.S. forces to deploy and respond rapidly to 
        regional security concerns.

                         MOST SERIOUS PROBLEMS

    Question. What do you consider to be the most serious problems in 
the performance of the functions of Commander, U.S. CENTCOM?
    Answer. Clearly, the most serious problems are the ongoing combat 
operations in Iraq and Afghanistan.
    Question. What management actions and timelines would you establish 
to address these problems?
    Answer. My intention is to gain a full appreciation of the 
situation in the region as quickly as possible and then to provide 
appropriate direction and guidance to our military forces.
                                  iraq
    Question. What is your assessment of the current situation facing 
the United States in Iraq?
    Answer. Significant progress has been made in developing Iraqi 
security forces and governing institutions since the collapse of the 
Saddam Hussein regime. The Iraqi people have approved a new 
constitution and elected a permanent, multi-party government. The Iraqi 
government has recognized the requirement for security and has 
identified steps to improve the prospects for political reconciliation 
and economic growth.
    However, the insurgent bombing of the Al Askariya Mosque in 
February 2006 reversed the momentum that followed the successful Iraqi 
elections. Sectarian-motivated violence now inhibits political 
progress, effective governance, and economic development. Many other 
factors, including poor infrastructure, corruption, and lack of 
experience at governance have exacerbated widespread mistrust between 
sectarian groups within Iraq.
    Levels of violence perpetuated by al Qaeda terrorists, insurgents 
aligned with the previous regime and competing sectarian death squads 
have increased steadily during the past year. Al Qaeda operatives and 
their allies target U.S. and Iraqi security forces and innocent 
civilians in an effort to discredit the U.S. and Iraqi governments and 
incite sectarian violence wherever possible. Their goal is instability 
and chaos. Other insurgents and sectarian entities are pursuing their 
own murderous agendas, receiving support from within Iran and Syria.
    Although growing in number and confidence, much of the Iraqi 
security force has not yet demonstrated an ability to stand on its own 
in the face of multiple onslaughts to stability. U.S. military strategy 
of having the Iraqi security forces lead most of the security effort 
has not been as successful as anticipated.
    Question. From your perspective, what are the top lessons learned 
from our experience in Iraq?
    Answer. U.S. forces in Iraq remain disciplined, spirited, and 
adaptable in the face of difficult battlefield conditions. Our forces 
have been training and have partnered with Iraqi security forces to 
establish a secure environment for the newly elected government of 
Iraq. This endeavor has proven more challenging than expected with many 
assumptions either incorrectly drawn or unfulfilled. Securing the 
stability of the country has been more difficult than anticipated. Our 
ability to correctly assess the political, economic, and security 
situation in Iraq has been lacking. While successful in clearing areas 
of insurgent and terrorist activity, we have relearned the need to hold 
these areas secure until Iraqi security forces and local political and 
economic activity have provided essential confidence to the population.
    Question. What do you consider to be the most significant mistakes 
the U.S. has made to date in Iraq? Which of these do you believe are 
still having an impact?
    Answer. President Bush, in his 10 January address to the Nation, 
highlighted the key mistakes:

        <bullet> Miscalculating that initial elections would bring 
        Iraqis together;
        <bullet> Believing that as we trained Iraqi security forces, we 
        could accomplish our mission with fewer U.S. troops;
        <bullet> Underestimating the ability of al Qaeda and Sunni 
        insurgents to provoke sectarian conflict; and
        <bullet> Failing to anticipate the extent of the response of 
        radical Shia elements and death squads.

    The issues cited here are still effecting the situation but actions 
are underway by the Iraqi and U.S. Governments to address them.
    Question. What do you believe are the most important steps that the 
United States needs to take in Iraq?
    Answer. The most important step we need to take in Iraq is to work 
with the Iraqi government to improve security. We also need to 
facilitate economic and infrastructure development while helping the 
Iraqis establish and maintain a viable representative political 
process.
    Question. What role, if any, did you play in the development of the 
new Iraq strategy recently announced by the President?
    Answer. In my position as Commander U.S. PACOM, I have not directly 
participated in the development of the new Iraq strategy.
    Question. Do you believe that there is a purely military solution 
in Iraq, or must the solution be primarily a political one?
    Answer. Although the military effort is critical to progress, a 
successful Iraq strategy will require coordinated economic, diplomatic, 
and political as well as security development.
    Question. Do you believe that political compromise among Iraqi 
political leaders is a necessary condition for a political solution?
    Answer. A successful political process requires compromise. The 
three principal factions in Iraq must find a way to cooperate on 
essential issues.
    Question. Do you believe that quelling the current level of 
violence is a necessary condition for a political solution?
    Answer. Substantially reducing the level of sectarian violence is 
essential to facilitate improved political process.
    Question. What do you believe will induce Iraqi political leaders 
to make the political compromises necessary for a political solution? 
What leverage does the U.S. have in this regard?
    Answer. Current levels of suffering experienced by the Iraqi 
population should motivate the political leaders to make progress. 
President Bush has clearly stated the need for a partnership between 
Prime Minister Maliki, Iraqi moderates, and the United States where all 
parties are clear on expectations and responsibilities. The Iraqi 
government has cited a number of actions it considers essential to 
national political progress. We should carefully monitor and assess the 
progress in these actions.
    Question. What do you see as a reasonable estimate of the time it 
will take to demonstrate success in securing Baghdad?
    Answer. I would not speculate on the amount of time or levels of 
success which might be possible from my current position. But the 
urgent need to make progress is obvious.
    Question. In the fiscal year 2007 Defense Authorization and 
Appropriation Acts Congress prohibited the use of funds to seek 
permanent bases in Iraq or to control the oil resources of Iraq.
    Do you agree that it is not and should not be the policy of the 
United States to seek permanent basing of U.S. forces in Iraq or to 
exercise control over Iraq's oil resources?
    Answer. Yes.
    Question. If you agree, what are your views on the construction of 
any additional facilities inside Iraq for use by our military forces?
    Answer. Operational commanders may request construction of 
temporary sites to facilitate necessary operations, and I would give 
appropriate consideration to such requests.
    Question. For the past several years, the Army and Marine Corps 
have had separate areas of responsibility in Iraq, with Marine forces 
assigned to the Anbar province. The two services have different 
logistics systems, and the Combined Forces Land Component Command 
(CFLCC) appears to now focus almost exclusively on Army requirements.
    Do you believe the Army and Marine Corps forces operating in Iraq 
have an appropriate degree of jointness?
    Answer. From observation during my visits to Iraq and through 
discussion with various commanders, I believe the Army and Marine Corps 
forces operating in Iraq have demonstrated an adequate degree of Joint 
cooperation, both operationally and logistically. The 3rd Army 
Headquarters serves both as the CFLCC and as the Army Forces (ARFOR) 
command with title 10 logistics responsibilities. As the ARFOR 
Commander, 3rd Army conducts joint and combined logistics operations, 
including support for Marine Expeditionary Unit rotations. At the 
tactical level, an Army Brigade Combat Team is deployed with the Marine 
Expeditionary Force operating in Anbar Province. An Army Corps Support 
Group, also deployed to Anbar Province, integrates logistic support for 
Marine units within the Theater Logistics Architecture. If confirmed, I 
will assess all aspects of jointness and ensure collaboration on 
operational and logistic matters between the Services.
    Question. Do you see any problems with the extent of reliance of 
U.S. forces in Iraq on contractor support?
    Answer. I do not have sufficient knowledge to address this 
question.

                              AFGHANISTAN

    Question. More than 4 years after securing a military victory 
against the Taliban and al Qaeda in Afghanistan, that nation remains a 
place with areas of unrest.
    What is your assessment of the current situation in Afghanistan?
    Answer. Much progress has been achieved in Afghanistan. The 
expansion of the International Security and Assistance Force and 
transition of the counterinsurgency mission to NATO command are 
positive steps. The resurgence of the Taliban in some areas of the 
country is a concern and must be addressed if political progress and 
economic development are to be sustained.
    Question. What is the status of efforts to develop and field an 
effective Afghan Army and national police force?
    Answer. The Afghan National Army (ANA) is becoming more 
professional and growing in confidence. As of this month, approximately 
32,000 of the 70,000 planned ANA soldiers have received training and 
equipment and now routinely engage the enemy alongside U.S. and 
coalition forces.
    More than 60,000 of the planned 82,000 Ministry of the Interior 
police officers have received training and equipment. Although they are 
not as professional or capable as the ANA, improvement has been noted. 
Continued focus on Afghan Police training and education will be 
critical to the future of Afghanistan, and close attention must be paid 
to ensure progress is being made in the effectiveness of the force.
    Question. In your view, what additional military or other 
assistance is required to ensure the transition of Afghanistan to a 
stable, democratic, and economically viable nation?
    Answer. Continued military assistance to expand security will be 
the critical enabler of success. Support to the ANA and police must 
continue as well as economic assistance and expanding good governance 
throughout Afghanistan.
    Question. In October 2006, British LTG Richards, Commander of the 
NATO International Security Assistance Force (ISAF) mission in 
Afghanistan, warned that coalition forces may be running out of time to 
show measurable progress in Afghanistan. He stated that if there is no 
progress in improving conditions for the Afghani people, they may 
choose ``the rotten future offered by the Taliban'' over the hopeful 
future which coalition forces have taken too long to deliver.
    Do you agree with LTG Richards' assessment that coalition forces 
have a limited window of opportunity in which to show improvements in 
the lives of the Afghani people?
    Answer. I would not speculate on the resilience of the Afghan 
people, although I would note they have endured the trauma of war for 
almost 30 years.
    Question. What steps do you believe coalition forces can take to 
improve the lives of the Afghani people in the near term?
    Answer. We should strive to provide enhanced security in areas 
where the Provincial Reconstruction Teams and international aid 
agencies are assisting reconstruction efforts. We should look for 
economic development opportunities to offset the opium production.
    We should support ISAF Afghan Development Zone (ADZ) initiatives, 
with security efforts in key regions setting conditions for 
reconstruction and governance. ADZs complement the Afghan Government's 
National Development Strategy for security, governance, rule of law, 
and human rights, and economic and social development. This overarching 
strategy deserves our support.
    Question. Military intelligence officials have stated that Taliban 
and al Qaeda attacks across the Afghan-Pakistan border have increased 
fourfold since September when the Pakistan Government signed an 
agreement with tribal elders in the border region ceding control over 
some border areas in western Pakistan.
    What more can be done to prevent cross border incursions by the 
Taliban and al Qaeda from Pakistan into Afghanistan?
    Answer. If confirmed, I intend to study the situation in 
Afghanistan and consult with the military leadership there to determine 
the best way to address this issue.
    Question. In your view, should the Pakistan Government be doing 
more to prevent these cross-border incursions?
    Answer. Yes. I believe that more could be done, and I will focus 
attention on this issue to determine what recommendations I will 
forward in this regard.
    Question. What role do you believe U.S. forces should play?
    Answer. We can enhance the capacity of Pakistan's Frontier Corps 
through our security assistance program. We will continue to provide 
intelligence support as well.
    Question. Afghanistan is in the CENTCOM's area of responsibility 
(AOR). U.S. European Command (EUCOM) oversees the NATO ISAF force in 
Afghanistan.
    In your view, does this ``seam'' present any problems for the 
coordination and effectiveness of the ISAF and Operation Enduring 
Freedom (OEF) missions in Afghanistan?
    Answer. I do not foresee any issues with the CENTCOM-SHAPE 
Relationship. NATO involvement in Afghanistan has been closely 
coordinated with CENTCOM. Throughout the process, measures to ensure 
synergy, maintenance of momentum, and reliable deconfliction of 
operations were painstakingly considered. I have extensive personal 
experience with the NATO military and political processes, which should 
facilitate my interaction and effectiveness with the NATO-CENTCOM 
relationship.

                                PAKISTAN

    Question. What is your assessment of the current status of U.S.-
Pakistan military cooperation?
    Answer. U.S.-Pakistan military cooperation has progressively 
improved since 11 September 2001. We coordinate military activities 
through a U.S. liaison team in Islamabad and the Pakistani military 
presence in Tampa, Bahrain, and Afghanistan.
    Question. What is your assessment of the level of cooperation we 
have received from Pakistan in the war on terrorism?
    Answer. Pakistan is an effective and vital partner in the war on 
terror. Pakistan has captured or killed more suspected AQ and Taliban 
than any other coalition member.
    Question. What is your assessment of the current situation with 
regard to Pakistani-Indian relations?
    Answer. Relations between India and Pakistan have improved through 
confidence building measures and dialogue during the past 2 years. 
Kashmir remains the core issue, but progress is being realized through 
incremental steps.

                       FORMER SOVIET UNION STATES

    Question. Several former Soviet states have played roles in 
supporting the U.S. and coalition forces in the global war on 
terrorism.
    What is your assessment of current U.S. military relationships with 
these nations, including Uzbekistan, Tajikistan, and Kyrgyzstan?
    Answer. Contributions from former Soviet states in Central Asia 
have been significant and helpful. Uzbekistan, Tajikistan, and 
Kyrgyzstan have provided basing and overflight from the beginning of 
the global war on terror. Other former Soviet states including Latvia, 
Lithuania, Kazakhstan, Ukraine, Georgia, and Estonia have provided 
troops in support of the coalition in Iraq and Afghanistan.
    The U.S. military relationship with many of the former Soviet 
states continues to develop incrementally. Much of our interaction is 
focused on building the capacity of these nations to ensure regional 
stability and security.
    Question. What security challenges do you see in this portion of 
the CENTCOM AOR?
    Answer. The security challenges in the Central Asian states are of 
concern because of the impact of extremism and criminal activity on 
economic development and the fragility of the governments. 
Additionally, the harsh environmental legacy of Soviet weapons and 
industrial programs, combined with severely restricted supplies of 
fresh water, further hobble legitimate economic growth.

                                  IRAN

    Question. Ambassador John Negroponte, Director of National 
Intelligence, recently testified before the Senate Select Intelligence 
Committee about Iran's growing influence in the Persian Gulf region. He 
stated, ``Under the Ahmadinejad government, Iran is enhancing its 
ability to project its military power, primarily with ballistic 
missiles and naval power--with the goal of dominating the Gulf region 
and deterring potential adversaries.''
    Do you agree with Ambassador Negroponte's assessment to the Senate 
Select Intelligence Committee regarding Iran's goals in the region?
    Answer. Yes. In addition to these conventional means, Iran is 
attempting to enhance its power through asymmetric means, such as 
support to international terrorism and the pursuit of a nuclear weapons 
capability.
    Question. What options do you believe are available to the United 
States to counter Iran's growing influence in the region?
    Answer. We should continue to work through the United Nations 
Security Council to enjoin the Iranian regime to halt its enrichment of 
uranium and its pursuit of nuclear weapons.
    We should continue to develop a regional security framework with 
our partners in the Gulf to deter Iranian aggression and protect our 
common interests. This framework can include security assistance, 
missile defense, joint exercises, and information sharing.
    Question. What is the view of U.S. allies in the region with regard 
to the threat posed by Iran?
    Answer. If confirmed, I intend to speak with our allies in the 
region about this issue. From my perspective as PACOM commander, I 
sense that our allies in the region are more concerned about the 
potential threat posed by Iran now than at any time since the Iran-Iraq 
War.
    Question. What is your assessment of the prospects for political 
reform in Iran?
    Answer. Iran's political system is slowly changing as its people 
increasingly participate in representative processes. However, the 
unelected institutions of the Iranian regime are well entrenched, hold 
the preponderance of political power in Iran, and control of Iran's 
military forces and intelligence services.
    Question. Do you believe that a protracted deployment of U.S. 
troops in Iraq, if the situation on the ground in Iraq does not 
improve, could strengthen Iran's influence in the region?
    Answer. The protracted deployment of U.S. forces in Iraq would not 
necessarily strengthen Iran's influence in the region.

                             IRAQI REFUGEES

    Question. The United Nations estimates that approximately 2.3 
million Iraqis have fled the violence in their country; 1.8 million 
have fled to surrounding countries, while some 500,000 have vacated 
their homes for safer areas within Iraq.
    What is your assessment of the refugee crisis in Iraq?
    Answer. There are some refugee problems inside Iraq, and the United 
Nations High Commissioner for Refugees is currently working the 
situation in the Northern Kurdistan Region. A greater refugee challenge 
exists in neighboring countries, which are dealing with the situation 
with their own resources and the support of the International 
Community. Once Iraq is stable and secure, I believe that a majority 
will return. The larger problem in Iraq is Internally Displaced Persons 
who affect regional demographics and pose a potential threat to long-
term security and stability.
    Question. Beyond working to improve the security environment in 
Iraq, do you believe that the U.S. military should play a role in 
addressing this crisis?
    Answer. The U.S. military's role in providing humanitarian relief 
for these persons will depend on the needs of the mission in Iraq and 
the availability of U.S. forces.

                             HORN OF AFRICA

    Question. One of CENTCOM's significant sub-regions is the Horn of 
Africa (HOA). Until a new African Command is stood up, CENTCOM will 
continue to be responsible for this region, which will likely 
experience continued instability and humanitarian crisis as 
demonstrated by recent events in Somalia.
    What is the strategic importance of this region to the United 
States?
    Answer. HOA sits astride one of the most critical sea lines of 
communication in the world. It is imperative that we maintain freedom 
of navigation to ensure strategic maritime access to the CENTCOM AOR 
and freedom of movement of ocean-borne commerce. We must remain engaged 
in HOA to deny terrorist organizations the ability to operate freely by 
building host nation capacities and governance capability to reduce 
ungoverned spaces. Commander, Joint Task Force-HOA has been engaged 
with key partner countries in the area, conducting humanitarian and 
civil military operations, as well as building host nation 
capabilities.
    Question. Over the last few weeks, the U.S. military has had a very 
public presence in Somalia.
    What is your understanding of the U.S. Government's policy for 
Somalia and how U.S. military action there supports that policy?
    Answer. The U.S. has three principal goals in Somalia: 1) support 
the establishment of a stable government based on genuine national 
reconciliation; 2) promote security and stability on the ground; and 3) 
respond to the humanitarian needs of the Somali people.

                             AFRICA COMMAND

    Question. Over the last year or so, the U.S. Government has 
mobilized more of its resources to focus on the strategic importance of 
Africa. The Department of Defense has played an important role through 
two Combatant Commands--EUCOM via the Trans Sahara Counterterrorism 
Program and CENTCOM via the creation of the Combined Joint Task Force--
HOA. There are 53 countries in Africa--42 are in the EUCOM AOR and 11 
are in the CENTCOM AOR.
    Do you support the proposal to create a new unified command for 
Africa and to transfer responsibility for operations in the HOA to that 
new command?
    Answer. Yes. If confirmed as Commander, USCENTCOM, I will support 
the standup of AFRICOM by doing whatever we can to implement this new 
command.
    Question. What impact would such a transfer have on the conduct of 
antiterrorism and other operations in that region?
    Answer. I would not anticipate any degradation in our antiterrorism 
efforts.
    Question. What will you do to ensure a smooth transition and to 
manage the seams between CENTCOM and the new African Command?
    Answer. To ensure a smooth transition, AFRICOM will be established 
incrementally with the support of EUCOM, which is responsible for 
military operations in most of Africa. This phased approach should 
minimize turnover concerns as mission sets are transferred from EUCOM, 
CENTCOM, and PACOM to AFRICOM.
    With respect to seams between CENTCOM and AFRICOM, we will manage 
these situations through direct coordination between commands, just as 
we have done previously with EUCOM and continue to do with PACOM.

                      DETAINEE TREATMENT STANDARDS

    Question. Do you agree with the policy set forth in the July 7, 
2006 memorandum issued by Deputy Secretary of Defense England stating 
that all relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. Do you share the view of the Judge Advocates General that 
standards for detainee treatment must be based on the principle of 
reciprocity, that is, that we must always keep in mind the risk that 
the manner in which we treat our own detainees may have a direct impact 
on the manner in which U.S. soldiers, sailors, airmen, or marines are 
treated, should they be captured in future conflicts?
    Answer. I believe that we should pay careful attention to ensuring 
that standards for detainee treatment comply fully with the law and 
reflect American values. We also should be aware of the risk that the 
manner in which we treat our own detainees may have an effect on the 
manner in which U.S. soldiers, sailors, airmen, and marines are treated 
should they be captured in future conflicts. U.S. Armed Forces policy 
is to treat all detainees, no matter their status, humanely and in 
accordance with the law of war. However, as you well know, the enemy we 
are currently fighting in Afghanistan and Iraq have repeatedly 
demonstrated their absolute disregard for the law of war, including the 
provisions of Common Article 3.
    Question. Do you believe it is consistent with effective 
counterinsurgency operations for U.S. forces to comply fully with the 
requirements of Common Article 3 of the Geneva Conventions?
    Answer. Yes.
    Question. How will you ensure that U.S. forces in the CENTCOM AOR 
comply with the standards in the Army Field Manual, the DOD Directive, 
and applicable requirements of U.S. and international law regarding 
detention and interrogation operations?
    Answer. I will continue to emphasize law of war training and 
specific training for those involved in interrogation. I will also 
ensure U.S. operational commanders comply with all applicable 
regulations and law, including the Detainee Treatment Act of 2005.

              SCIENTIFIC ADVISORS FOR COMBATANT COMMANDERS

    Question. Scientific advisors to combatant commanders have been 
effectively utilized as a means of technology transition and providing 
operators' solutions to warfighter challenges.
    If confirmed, how would your command make use of the technical 
expertise available in the Services and their laboratories in order to 
provide scientific and technical advice to the warfighters?
    Answer. If confirmed, I will task the Science Advisor to work 
closely with the broader scientific community--particularly the Service 
laboratories and the Office of the Director, Defense Research and 
Engineering--to ensure that U.S. CENTCOM benefits from the best 
technical advice our Nation has to offer. Routine interaction with 
these organizations would also help U.S. CENTCOM shape the Department's 
research and development effort to match up with command requirements.

                      BANDWIDTH ON THE BATTLEFIELD

    Question. Unmanned assets, such as persistent unmanned aerial 
vehicles, require tremendous bandwidth capacity. Command and control, 
blue force tracking and movement of intelligence products also use 
significant amounts of bandwidth.
    What challenges do you anticipate in fully utilizing these 
important assets with the limited bandwidth currently available to the 
warfighter?
    Answer. The chief challenge is efficiently managing the bandwidth 
to achieve maximum impact from intelligence, surveillance, and 
reconnaissance capabilities.
    Question. What is your assessment of the bandwidth available during 
Operation Iraqi Freedom (OIF)?
    Answer. My initial assessment is that bandwidth is sufficient for 
intelligence product dissemination and situational awareness. However, 
as the requirement for additional full-motion video ISR assets and 
other bandwidth intensive systems come online, the current bandwidth 
could become a limiting factor, but I would push hard for increased 
efficiency of utilization.

            MISSILE AND WEAPONS OF MASS DESTRUCTION THREATS

    Question. Iran continues to develop short- and medium-range 
ballistic missiles and could develop ballistic missiles capable of 
reaching the United States in the relatively near-term. The 
Intelligence Community assesses that Iran could test such a missile 
later this decade and will ``likely'' pose an ICBM threat to the United 
States by 2015. Iran also has a significant naval presence in the 
Persian Gulf, and shore-based antiship cruise missiles. The 
Intelligence Community also assesses that Iran is actively pursuing 
weapons of mass destruction (WMD), and could have nuclear weapons 
within the decade.
    How do you evaluate Iran's current capability to use ballistic 
missiles and WMD against U.S. forces, allies and friends, and what is 
your projection of Iran's future capabilities?
    Answer. Iran can employ ballistic missiles up to 1,300 km with 
little/no advance warning and with greater accuracy and effectiveness 
than Iraq demonstrated in 1991 and 2003. Iran has expanded ballistic 
missile forces and capabilities, but remains dependent on foreign 
technical support. Tehran can employ CW via missile, artillery, and 
aerial weapons, although it is unclear if a standing CW stockpile 
exists. Iran is unlikely to produce enough fissile material for a 
nuclear weapon until mid-next decade.
    Question. How do you evaluate Iran's cruise missile capabilities, 
and Iran's ability to threaten U.S. naval forces and commercial 
shipping in the Persian Gulf, the Straits of Hormuz, and the Arabian 
Sea?
    Answer. Iran can threaten undefended commercial shipping and create 
a tactically challenging environment for naval forces in constrained 
waters of the Strait of Hormuz and the Gulf region. However, Iran also 
has operational and tactical weaknesses that can be effectively 
exploited by U.S. forces.
    Question. If confirmed, how would you protect the troops and allies 
under your command from these threats?
    Answer. After consulting with select nations in the CENTCOM AOR and 
confirming their support, I would use a combination of U.S. and 
Coalition Ballistic Missile Defense and Early Warning (EW) capabilities 
to protect both U.S. and Coalition critical military and geopolitical 
assets.

                             SEXUAL ASSAULT

    Question. If confirmed as Commander, U.S. CENTCOM, you will be 
responsible for ensuring compliance with DOD policies on prevention of 
and response to sexual assaults throughout the CENTCOM AOR.
    What lessons did you learn in implementation of sexual assault 
training, reporting protocols and command awareness during your tour as 
Commander, U.S. PACOM, that can be applied in the U.S. CENTCOM?
    Answer. As PACOM Commander, I observed that training--both pre-
deployment and response personnel training--is essential in preventing 
and effectively responding to allegations and incidents of sexual 
assault. Additionally, I believe that the Department of Defense Sexual 
Assault Prevention Program has provided commanders clear, proactive 
sexual assault response protocols.
    Question. What are the unique issues that you believe need to be 
addressed to ensure that policies on prevention, reporting, medical 
treatment and victim support are available in the operational 
environments of Iraq and Afghanistan?
    Answer. We should maintain sexual assault awareness in the 
operational environment by conducting recurring in-theater training. We 
should also continue to ensure that supplies, trained personnel, and 
transportation resources are readily accessible and available to 
deployed personnel.
    Question. If confirmed, how would you assess the current adequacy 
of such resources in the CENTCOM AOR?
    Answer. If confirmed, I would ensure that CENTCOM sexual assault 
policy and practice align with current Department of Defense polices as 
prescribed in DODD 6495 and DODI 6495. I would maintain command 
emphasis on these policies and the Sexual Assault Prevention Program.

                        MENTAL HEALTH IN THEATER

    Question. The Army's Mental Health Advisory Team (MHAT) has made 
three separate assessments over the past several years detailing the 
immediate effects of combat on mental health conditions of U.S. 
soldiers deployed to Iraq. The most recent study, MHAT III, found that 
multiple deployers reported experiencing higher levels of acute stress, 
and that overall levels of combat stressors are increasing. These types 
of reports lend support to the fact that increasing numbers of troops 
are returning from duty in Iraq with Post-Traumatic Stress Disorder, 
depression, and other mental health issues.
    Please summarize for the committee your understanding of the key 
findings of each of the previous mental health assessments, actions 
taken to address key findings in each, and the effect of such actions.
    Answer. I understand these studies concluded that multiple or long 
deployments can lead to increased incidents of mental health issues. 
The level of combat and quality of noncommissioned officer leadership 
directly affect servicemembers' mental health. The Military Services 
have established an array of assessment, prevention, and treatment 
programs that provide mental health support before, during, and after 
deployments.
    I understand that CENTCOM policy requires pre- and post-deployment 
mental health assessments and reassessments. MNF-I has created an 
expert working group to assess the status of mental health in the AOR. 
CENTCOM has also redistributed mental health staff to provide better 
coverage for deployed personnel.
    Question. If confirmed, would you support continuous mental health 
assessments of the U.S. forces in Iraq, to include naval forces on the 
ground?
    Answer. Yes.
    Question. Do you have any thoughts on how we can best address the 
mental health needs of our troops and their families, in terms of both 
prevention and treatment?
    Answer. We must continue to re-examine whether we are doing all we 
should to meet the mental health needs of deployed personnel. Where 
possible, I will work with the Service Chiefs to ensure they have 
adequate programs and support systems at their respective installations 
to support servicemembers and their families back home.
    Question. If confirmed, will you request additional behavioral 
health resources from all three Services, if needed, to meet the needs 
of current and future units deployed to Iraq?
    Answer. Yes. If additional Mental Health Forces are requested in 
support of OIF/OEF and global war on terrorism, I will work with the 
Joint Staff and the Global Force Manager, Joint Forces Command, for 
additional mental health resources.
    Question. The DOD Mental Health Task Force recently received 
testimony that the U.S. military does not have enough adequately 
trained mental health professionals to meet the growing needs for 
mental health support in the military.
    Do you share this concern about the adequacy of mental health 
professionals to support members of the Armed Forces, especially those 
in deployed and operational environments, and their families?
    Answer. I am always concerned about the welfare of our 
servicemembers, our DOD civilians, and their families. If confirmed, I 
would expect commanders to leverage all resources--morale, welfare, 
religious support, and family support programs as well as health 
professionals--to meet the mental health needs of our servicemembers 
and their families. I believe that if additional capabilities were 
needed in the CENTCOM AOR, the Services would provide them.
    Question. As commander of the U.S. PACOM, what steps have you taken 
to ensure adequate mental health support for deployed military members 
and their families?
    Answer. As PACOM Commander, I have worked with my subordinate 
commanders to regularly assess our mental health requirements and the 
adequacy of available mental health resources.
    Question. If confirmed, what steps would you take to ensure the 
adequacy of mental health support and resources in the CENTCOM AOR both 
in general, and specifically in combat zones?
    Answer. The mental health of deployed forces in theater is a major 
responsibility of the leadership of the Armed Forces. It is a 
responsibility to the individual soldier, sailor, airman, and marine, 
to the fighting force as a whole, to their families, and to the Nation. 
The military Services have in place a broad array of assessment, 
prevention, and treatment programs. Medical conditions that may limit 
or disqualify deployed servicemembers are continually assessed, while 
screening, assessment, and educational programs take place across the 
entire deployment cycle. A spectrum of prevention, stress control, and 
mental health care is available in theater. Pre- and post-deployment 
health assessments are conducted. Each branch of Service has specific 
combat stress and deployment mental health support programs available 
before, during, and after the deployment cycle. These provide support 
tailored to the Service's mission and risk factors their personnel 
might face. In addition, cross-functional planning teams bring together 
subject matter experts from across the Services, the Joint Staff, and 
DOD.
    I support a very robust program of mental health prevention, 
assessment, and treatment. I have not had an opportunity to be briefed 
on the Army's MHAT assessments, nor to develop a specific action plan 
to address any needed strengthening of the current program. If I am 
confirmed, I will look to both our health care professionals and 
command leadership to help me assess the needs, and will seek support 
from the military and civilian leadership of the Department. If I am 
confirmed and if I determine additional mental health professionals are 
needed in theater, I will ask for them.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. I agree.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. I agree.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, U.S. CENTCOM?
    Answer. I agree.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. I agree.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. I intend to cooperate fully with Congress to ensure an 
appropriate and timely response from U.S. CENTCOM to all congressional 
requests.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

         Questions Submitted by Senator Hillary Rodham Clinton

                       LEVERAGE ON IRAQI LEADERS

    1. Senator Clinton. Admiral Fallon, Iraqi political leaders have 
demonstrated little progress in decreasing the increased levels of 
sectarian violence over the past year. On page 9, of responses provided 
to the advance policy questions, specifically ``What do you believe 
will induce Iraqi political leaders to make the political compromises 
necessary for a political solution? What leverage does the U.S. have in 
this regard?'' The answer provided stated, ``Current levels of 
suffering experienced by the Iraqi population should motivate the 
political leaders to make progress.'' Does the U.S. have any other 
leverage over the Iraqi political leaders?
    Admiral Fallon. There are a number of economic, political, and 
military options that could offer a degree of leverage. General 
Petraeus is working directly with officials in the Government of Iraq 
to ascertain the best combination of U.S. policies to expedite national 
reconciliation.

    2. Senator Clinton. Admiral Fallon, many of us believe that 
beginning a phased redeployment of U.S. troops from Iraq will force the 
Iraqis to make the tough political compromises to make progress. Do you 
think adjustments in our force levels offer potential leverage with the 
Iraqis?
    Admiral Fallon. The Government of Iraq is under tremendous pressure 
from the U.S. Government and the Iraqi people to produce tangible 
results. Decreasing our troop levels at this time would weaken Prime 
Minister Maliki and embolden the insurgents.
    Although our support for the Government of Iraq is not open ended, 
it is imperative that we provide Prime Minister Maliki and his 
government time and space to establish the institutions of governance, 
after decades of totalitarian rule.

                          PRIVATE CONTRACTORS

    3. Senator Clinton. Admiral Fallon, many of us on the Committee 
have been concerned about the extent to which we have relied on private 
contractors in Iraq. On page 10, of responses provided to the advance 
policy questions, specifically ``Do you see any problems with the 
extent of reliance of U.S. forces in Iraq on contractor support?'' The 
answer provided stated, ``I do not have sufficient knowledge to address 
this question." Will you look into this issue once you are confirmed?
    Admiral Fallon. Yes.

                      IRAQI GOVERNMENT LEGITIMACY

    4. Senator Clinton. Admiral Fallon, a main tenet of 
counterinsurgency doctrine is that victory is achieved when the 
populace consents to the government's legitimacy and stops their active 
and passive support to the insurgency. Do you believe that the current 
government in Baghdad is currently governing in a way that enhances its 
legitimacy?
    Admiral Fallon. Yes, the current government is focused on quickly 
restoring basic services to increase populace support. Establishing 
reasonable security is of primary importance in this endeavor.

    5. Senator Clinton. Admiral Fallon, is the fighting in Baghdad the 
result of an insurgency or a sectarian civil war?
    Admiral Fallon. Iraqi society's growing polarization, the 
persistent weakness of the security forces and the state in general, 
and all sides' ready recourse to violence are collectively driving an 
increase in communal and insurgent violence and political extremism. 
Unless efforts to reverse these conditions show measurable progress 
during the coming 12 to 18 months, we assess that the overall security 
situation will continue to deteriorate at rates comparable to the 
latter part of 2006.
    Extremists--most notably the Sunni jihadist group al Qaeda in Iraq 
and Shia oppositionist Jaysh al-Mahdi (JAM)--continue to act as very 
effective accelerators for what has become a self-sustaining inter-
sectarian struggle between Shia and Sunnis.
    The Intelligence Community judges that the term ``civil war'' does 
not adequately capture the complexity of the conflict in Iraq, which 
includes extensive Shia-on-Shia violence, al Qaeda and Sunni insurgent 
attacks on coalition forces, and widespread criminally motivated 
violence. Nonetheless, the term ``civil war'' accurately describes key 
elements of the Iraqi conflict, including the hardening of ethno-
sectarian identities, a sea change in the character of the violence, 
ethno-sectarian mobilization, and population displacements.''

    6. Senator Clinton. Admiral Fallon, how will you tailor the best 
practices of counterinsurgency to quell the continued sectarian blood 
letting?
    Admiral Fallon. I will provide General Petraeus the strategic 
guidance and resources he needs to execute an effective 
counterinsurgency campaign. General Petraeus and I will continuously 
assess the progress and adjust as required to ensure success. 
Additionally, I will work in concert with the State Department to 
remove outside support for insurgents and militias in Iraq.

                       IRAN'S STRATEGIC POSITION

    7. Senator Clinton. Admiral Fallon, the Washington Post published 
an article on January 30, 2007 about Iran's ascendance titled ``With 
Iran Ascendant, U.S. is Seen at Fault: Arab Allies in Region Feeling 
Pressure.'' It points out that prior to our invasion of Iraq, Iran was 
bordered by two unfriendly countries, Iraq and Afghanistan, but now 
seems to be ascendant in the region. What is your evaluation of Iran's 
strategic position in the region since the U.S. invasion of Iraq in 
2002?
    Admiral Fallon. Iran is actively seeking to expand influence in the 
region. Coincidentally, the fall of the Taliban and Saddam regimes 
removed a strategic counterweight to Iranian influence. However, 
regional nations with U.S. support are working together diplomatically 
to reduce this influence. Additionally, the security and stability 
provided by the U.S. military presence serves to counter balance Iran's 
military power.

    8. Senator Clinton. Admiral Fallon, do you have an opinion as to 
the desirability of the U.S. engaging in a dialogue with Iran about 
their activities in Iraq? About the Iranian nuclear program?
    Admiral Fallon. Engaging Iran is a policy decision. President Bush 
and Secretary of State Rice have offered to hold talks with Iran's 
leaders on Iraq, regional security, and nuclear issues, after they 
suspend uranium enrichment. Engagement and dialog with Iran to discuss 
Iraq would be desirable if Iran demonstrates a willingness to support 
international efforts to stabilize Iraq.
    In regards to the Iranian nuclear program, the international 
community, with the adoption of U.N. Security Council Resolution 1737, 
clearly agreed that the world does not want a nuclear-armed Iran. U.S. 
Central Command (CENTCOM) continues to engage with regional partners to 
facilitate counterproliferation activities and enhancement of regional 
security.
                                 ______
                                 
               Question Submitted by Senator John McCain

                  SEA-BASED BALLISTIC MISSILE DEFENSE

    9. Senator McCain. Admiral Fallon, as U.S. Pacific Command (PACOM) 
Commander, you are aware that the Department of Defense plans to equip 
18 Pacific Fleet Aegis-class destroyers and cruisers by 2010 with a 
sea-based ballistic missile defense capability to defend against the 
ballistic missile threat posed by North Korea. In your response to an 
advance policy question, you write: ``Iran can employ ballistic 
missiles up to 1,300 kilometers with little/no advance warning and with 
greater accuracy and effectiveness than Iraq demonstrated in 1991 and 
2003.'' Given your recognition of the ballistic missile threat posed by 
Iran, would it not make strategic sense to accelerate efforts to 
similarly equip our Aegis ships in and near the CENTCOM area of 
responsibility with a ballistic missile defense capability?
    Admiral Fallon. Yes.
                                 ______
                                 
    [The nomination reference of ADM William J. Fallon, USN, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 16, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Navy to the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C., section 601:

                             To be Admiral

    ADM William J. Fallon, 0000.
                                 ______
                                 
     Transcript of Naval Service for ADM William Joseph Fallon, USN
    30 December 1944 - Born in East Orange, New Jersey.
    16 September 1963 - Midshipman, U.S. Naval Reserve, Naval Reserve 
Officers Training Corps.
    15 May 1967 - Ensign to rank from 7 June 1967.
    01 July 1968 - Lieutenant (junior grade).
    01 July 1970 - Lieutenant.
    01 July 1976 - Lieutenant Commander.
    01 April 1982 - Commander.
    01 September 1988 - Captain.
    23 August 1993 - Designated Rear Admiral (lower half) while serving 
in billets commensurate with that grade.
    01 October 1994 - Rear Admiral (lower half).
    01 January 1997 - Rear Admiral.
    20 September 1996 - Vice Admiral.
    06 October 2000 - Designated Admiral while serving in billets 
commensurate with that grade.
    01 November 2000 - Admiral, service continuous to date.

Assignments and Duties:

------------------------------------------------------------------------
                                                     From         To
------------------------------------------------------------------------
Naval Air Basic Training Command, U.S. Naval Air    May 1967   Nov. 1967
 Station, Pensacola, FL (DUINS).................
U.S. Naval Air Technical Center, Glynco, GA        Nov. 1967   Dec. 1967
 (DUINS)........................................
U.S. Naval Station, New York, NY................   Dec. 1967   Jan. 1968
Reconnaissance Attack Squadron THREE (DUINS)....   Jan. 1968   Dec. 1968
Naval Justice School (DUINS)....................   Dec. 1968   Feb. 1969
Reconnaissance Attack Squadron FIVE,               Feb. 1969   Oct. 1970
 (Reconnaissance Attack Navigator)..............
Commander, Reconnaissance Attack Wing ONE,         Oct. 1970   July 1972
 (Administrative Officer).......................
Staff, Commander Fleet Air, Jacksonville, FL       July 1972   July 1973
 (Flag Lieutenant/Flag Secretary)...............
DEP COMNA V AIRLANTTACAIR (Aide/Administrative     July 1973   June 1974
 Officer).......................................
Attack Squadron FOUR TWO (DUINS)................   June 1974   Dec. 1974
Attack Squadron SEVEN FIVE (Avionics/Armament      Dec. 1974   July 1977
 Officer/Training Officer)......................
Naval War College (DUlNS).......................   July 1977   July 1978
Attack Squadron FOUR TWO (DUINS)................   July 1978   Oct. 1978
Attack Squadron SIX FIVE (Operations Officer/      Oct. 1978   Feb. 1981
 Executive Assistant)...........................
Commander, Operational Test and Evaluation Force   Feb. 1981   July 1982
 (Operational Test Coordinator of Attack Weapons
 Systems).......................................
Attack Squadron FOUR TWO (DUINS)................   July 1982   Nov. 1982
XO, Attack Squadron SIX FIVE....................   Nov. 1982    May 1984
CO, Attack Squadron SIX FIVE....................    May 1984   Sep. 1985
Commander, Naval Air Force, U.S. Atlantic Fleet    Sep. 1985   Dec. 1985
 (DUlNS)........................................
Carrier Air Wing EIGHT (Deputy Air Wing            Jan. 1986   July 1987
 Commander).....................................
Commander, Naval Air Force, U.S. Atlantic Fleet    July 1987   Jan. 1989
 (Air Wing Training and Readiness Officer)......
Commander, Medium Attack Wing ONE...............   Jan. 1989   Feb. 1990
Commander, Carrier Air Wing EIGHT...............   Mar. 1990   Aug. 1991
National Defense University (DUINS).............   Aug. 1991   June 1992
Office of the CNO (Deputy Director, Aviation       July 1992   Sep. 1993
 Plans and Requirements Branch) (N880B).........
Commander, Joint Task Force Southwest Asia         Aug. 1992   Nov. 1992
 (Deputy Staff Operations Officer, J-3).........
SACLANT (Assistant Chief of Staff for Plans and    Sep. 1993   June 1995
 Policy)........................................
Commander, Carrier Group EIGHT..................   June 1995   Feb. 1996
COMLANTFLT (Deputy and Chief of Staff)..........   Feb. 1996   Sep. 1996
U.S. Atlantic Command (Deputy Commander in Chief   Sep. 1996   Nov. 1997
 and Chief of Staff)............................
Commander, SECOND Fleet/Commander, Striking        Nov. 1997   Oct. 2000
 Fleet Atlantic.................................
Vice Chief of Naval Operations..................   Oct. 2000   Oct. 2003
Commander, U.S. Atlantic Fleet and Commander,      Oct. 2003   Feb. 2005
 Fleet Forces Command...........................
Commander, U.S. Pacific Command.................   Feb. 2005     To date
------------------------------------------------------------------------


Medals and awards:
    Defense Superior Service Medal
    Legion of Merit with three Gold Stars
    Bronze Star Medal with Combat ``V''
    Meritorious Service Medal with two Gold Stars
    Air Medal with Bronze Numeral ``6'', Gold Star, and Combat ``V''
    Navy and Marine Corps Commendation Medal with one Gold Star, and 
Combat ``V''
    Navy and Marine Corps Achievement Medal
    Joint Meritorious Unit Award
    Navy Unit Commendation with two Bronze Stars
    Meritorious Unit Commendation with one Bronze Star
    Navy ``E'' Ribbon with two Es
    Navy Expeditionary Medal with one Bronze Star
    National Defense Service Medal with one Bronze Star
    Armed Forces Expeditionary Medal with two Bronze Stars
    Vietnam Service Medal with two Bronze Stars
    Southwest Asia Service Medal with two Bronze Stars
    Sea Service Deployment Ribbon with one Silver Star
    NATO Medal
    Republic of Vietnam Gallantry Cross Unit Citation
    Republic of Vietnam Campaign Medal with Device
    Kuwait Liberation Medal with Device (Saudi Arabia)
    Kuwait Liberation Medal (Kuwait)

Special qualifications:
    BA (Social Science) Villanova University, 1967
    MA (International Studies) Old Dominion University, 1982
    Graduate of Naval War College, 1978
    Graduate of National War College, 1992
    Designated Naval Flight Officer, 1967
    Designated Joint Specialty Officer, 1995
    Language Qualifications: French (Knowledge)

Personal data:
    Wife: Mary Elizabeth Trapp of Scarsdale, New York
    Children: Susan K. Fallon (Daughter), Born: 1 March 1971.
    Barbara L. Fallon (Daughter), Born: 21 November 1973.
    William P. Fallon (Son), Born: 31 July 1976.
    Christina A. Fallon (Daughter), Born: 4 March 1983.

Summary of joint duty assignments:

------------------------------------------------------------------------
              Assignment                         Dates             Rank
------------------------------------------------------------------------
*Commander, Carrier Air Wing EIGHT....          Jan. 91-Apr. 91    Capt.
SACLANT (Assistant Chief of Staff for         Sep. 93-June 1995     RDML
 Plans and Policy)....................
USCINCLANT (Deputy Commander in Chief           Sep. 96-Nov. 97     VADM
 and Chief of Staff)..................
Commander, SECOND Fleet/Commander,              Nov. 97-Oct. 00     VADM
 Striking Fleet Atlantic..............
Commander, U.S. Pacific Command.......          Feb. 05-to date      ADM
------------------------------------------------------------------------
* Desert Storm

    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by ADM William J. 
Fallon, USN, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    William J. Fallon.

    2. Position to which nominated:
    Commander, United States Central Command.

    3. Date of nomination:
    16 January 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    30 December 1944; East Orange, New Jersey.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Mary E. Trapp Fallon.

    7. Names and ages of children:
    Susan K. Fallon, 35; Barbara L. Fallon, 33; William P. Fallon, 30; 
and Christina A. Fallon, 23.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    Occidental College Golbal Affairs Advisory Board.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    American Automobile Association
    American Meteorological Society
    Army & Navy Club
    Association of Naval Aviation
    Deer Run Condominium Owners Association Board (Big Sky, MT)
    Bishopsgate (Virginia Beach, VA) Civic League
    Hampton Roads World Affairs Council
    Knights of Columbus
    Mercedes Benz Club of America
    National Geographic Society
    National War College Alumni Association
    Navy Federal Credit Union
    Old Dominion University Alumni Association
    Smithsonian Institute
    Our Lady Star of the Sea (VA Beach, VA) Catholic School Board
    Tailhook Association
    U.S. Naval Institute
    Veterans of Foreign Affairs
    Villanova University Alumni Association
    Villanova University Varsity Club
    Villanova University Wildcat Club.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Villanova University Alumni Loyalty Award
    Old Dominion University Distinguished Alumnus Award
    Naval War College Distinguished Alumnus Award
    Camden Catholic High School Distinguished Alumnus Award
    Business Executives for National Security Eisenhower Award
    USO of Philadelphia/South Jersey Liberty Award.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify before any duly constituted 
committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                        ADM William J. Fallon, USN.
    This 17th day of January, 2007.

    [The nomination of ADM William J. Fallon, USN, was reported 
to the Senate by Chairman Levin on February 6, 2007, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on February 7, 2007.]


 NOMINATION OF GEN GEORGE W. CASEY, JR., USA, FOR REAPPOINTMENT TO THE 
     GRADE OF GENERAL AND TO BE CHIEF OF STAFF, UNITED STATES ARMY

                              ----------                              


                       THURSDAY, FEBRUARY 1, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SR-325, Russell Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Bill Nelson, E. Benjamin Nelson, Bayh, Clinton, Pryor, Webb, 
McCaskill, McCain, Warner, Inhofe, Sessions, Collins, 
Chambliss, Graham, Dole, Cornyn, Thune, and Martinez.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Daniel J. Cox, Jr., professional staff member; Michael J. 
Kuiken, professional staff member; Gerald J. Leeling, counsel; 
Peter K. Levine, chief counsel; Michael J. McCord, professional 
staff member; William G.P. Monahan, counsel; Michael J. Noblet, 
research assistant; Arun A. Seraphin, professional staff 
member; and William K. Sutey, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Ambrose R. Hock, professional staff member; 
Gregory T. Kiley, professional staff member; Derek J. Maurer, 
minority counsel; David M. Morriss, minority counsel; Lucian L. 
Niemeyer, professional staff member; Christopher J. Paul, 
professional staff member; Lynn F. Rusten, professional staff 
member; Sean G. Stackley, professional staff member; Diana G. 
Tabler, professional staff member; and Richard F. Walsh, 
minority counsel.
    Staff assistants present: Micah H. Harris and Jessica L. 
Kingston.
    Committee members' assistants present: Joseph Axelrad, 
assistant to Senator Kennedy; Frederick M. Downey, assistant to 
Senator Lieberman; Elizabeth King, assistant to Senator Reed; 
Caroline Tess, assistant to Senator Bill Nelson; Eric Pierce, 
assistant to Senator Ben Nelson; Todd Rosenblum, assistant to 
Senator Bayh; Andrew Shapiro, assistant to Senator Clinton; 
Lauren Henry, assistant to Senator Pryor; Gordon I. Peterson 
and Michael Sozan, assistants to Senator Webb; Nichole M. 
Distefano, assistant to Senator McCaskill; Richard H. Fontaine, 
Jr., assistant to Senator McCain; John A. Bonsell and Jeremy 
Shull, assistants to Senator Inhofe; Arch Galloway II, 
assistant to Senator Sessions; Mark Winter, assistant to 
Senator Collins; Clyde A. Taylor IV, assistant to Senator 
Chambliss; Adam G. Brake, assistant to Senator Graham; Lindsey 
Neas, assistant to Senator Dole; Russell J. Thomasson, 
assistant to Senator Cornyn; Stuart C. Mallory and Bob Taylor, 
assistants to Senator Thune; and Brian W. Walsh, assistant to 
Senator Martinez.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning. Today we welcome General 
George Casey, the President's nominee to replace General Peter 
Schoomaker as the Chief of Staff of the United States Army. We 
are also pleased to welcome General Casey's family, who we will 
ask him to introduce in a moment, and we all know just how 
vitally important families are to the men and women who serve 
in the military and we thank them for their service as well as 
you for your service, General.
    General Casey is well known to members of this committee 
and to the American people as Commanding General, Multi-
National Forces-Iraq (MNF-I), in which capacity he has served 
for over 2\1/2\ years. Prior to that command he was Vice Chief 
of Staff of the Army, which was preceded by an assignment as 
Director of the Joint Staff, and before that as Director of 
Strategy, Plans and Policy, J5, on the Joint Staff.
    General Casey is an infantryman, having commanded at all 
levels up to and including division command. As an assistant 
division commander he served in Bosnia and earlier in his 
career he served in Cairo as an United Nations (U.N.) military 
observer with the U.N. Truce Supervision Organization. He also 
served a tour of duty as a congressional liaison officer.
    As commander in Iraq, General Casey is of course identified 
with the administration's Iraq strategy. His focus was on 
training and equipping Iraqi security forces to bring them as 
quickly as possible to a level where they could relieve 
American forces from the burden of providing the security that 
Iraqis should be providing for themselves.
    In this strategy, he was joined by his boss, U.S. Central 
Command Commander General John Abizaid, and his subordinate, 
the corps commander, Lieutenant General Peter Chiarelli. 
General Casey put it this way, ``The longer we in the United 
States forces continue to bear the main burden of Iraq's 
security, it lengthens the time that the Government of Iraq has 
to take the hard decisions about reconciliation and dealing 
with the militias. The other thing is that they can continue to 
blame us for all of Iraq's problems, which are at base their 
problems.''
    General Casey and other commanders had to deal with the 
consequences of the myriad of flawed policies, including having 
insufficient forces at the outset of the operation, failing to 
properly plan for the postwar stability operations, disbanding 
the Iraqi army, and an overly extensive de-Baathification 
program, to name but a few. How well he carried out his 
responsibilities will be one of the topics this morning.
    We also need to understand what role he played in the 
development of the new strategy and his expectations for the 
new approach, what has changed that he now apparently believes 
that more U.S. troops will help reduce sectarian violence when 
he did not seem to believe that before, how would he deal with 
the sectarian militias if they are going underground and hiding 
weapons instead of directly confronting coalition forces in the 
short term; what are their future goals; how long is it 
expected that they will stay underground; should coalition 
forces seek to disarm the Mahdi Army so they cannot come out 
from underground at a later time; what are his concerns about 
the lack of unity of command between U.S. and Iraqi forces; 
what should be done about it; who will really be taking the 
lead down at the small unit level in the neighborhoods; and how 
will the U.S. platoons and companies living with and operating 
with the Iraqi security forces in these small neighborhood 
minibases not become involved in violent interface with Iraqis; 
what benchmarks would he be looking for the determine whether 
Iraqi commitments are being kept; if the Iraqi government fails 
to deploy the additional units to Baghdad according to the 
benchmarks to which it has agreed, what does he believe should 
be the consequences; what progress has there been on Iraqi 
leaders meeting the political commitments they have made; and 
does he believe there should be consequences for failures to 
meet those commitments?
    We also need to inquire as to how long General Casey 
believes the increased troop level can be sustained by an army 
whose non-deployed units are suffering from significant 
readiness problems, as has been testified to by the current 
Chief of Staff, as well as to what he considers to be his 
greatest challenges should he be confirmed as the next Army 
Chief of Staff.
    Again, we welcome you, General. We look forward to your 
testimony.
    I now call upon Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    General Casey, welcome. I am grateful for your 
extraordinary service and personal sacrifice throughout your 
career. In addition, I would like to express my appreciation to 
your family for their support of your service, as well as the 
support they have provided to the men and women in uniform and 
their families.
    You have been nominated to be the 37th Chief of Staff of 
the Army. The ranks of previous Army chiefs of staff are filled 
with such distinguished officers as General of the Armies John 
J. Pershing, George C. Marshall, Dwight D. Eisenhower, and Omar 
N. Bradley, as well as General J. Lawton Collins, Matthew B. 
Ridgway, and Maxwell D. Taylor. This nomination is a great 
honor and an even greater responsibility.
    While I do not in any way question your honor, your 
patriotism, or your service to our country, I do question some 
of the decisions and judgments you have made over the past 2\1/
2\ years as Commander of MNF-I. During that time things have 
gotten markedly and progressively worse and the situation in 
Iraq can now best be described as dire and deteriorating. I 
regret that our window of opportunity to reverse momentum may 
be closing.
    The bombing of the Golden Mosque in Samarra last February 
sparked sectarian violence throughout Iraq and Baghdad in 
particular. Yet in the face of this dramatic change in the 
Iraqi security environment, our military strategy remained 
essentially unchanged. Instead of conducting a traditional 
counterinsurgency campaign, our troops focused on training and 
equipping Iraqis, hoping in vain that they could do the job.
    After repeated elections and political events demonstrated 
that the democratic process would not on its own bring down the 
level of violence, our troops did not begin focusing on 
protecting the population. Instead, coalition and Iraqi forces 
launched Operation Together Forward in June 2006. This 
operation, aimed at securing Baghdad, failed. Yet the coalition 
launched Operation Together Forward 2 in August in a very 
similar fashion. The result, predictably, was a similar 
failure.
    The result of these and other missteps have been 
unprecedented levels of violence in Iraq and a pervasive lack 
of security that inhibits political and economic activity. In 
the 3\1/2\ years after the initial invasion, we finally turn 
toward a strategy that implements all three elements of the 
clear, hold, and build approach, focuses on protecting the 
population, and is carried out by, I hope, a sufficient number 
of additional U.S. forces.
    I am not certain five additional brigades in Baghdad and 
one more in Anbar Province are sufficient to do the job. I am 
certain, however, that the job cannot be done with just two 
additional brigades, as you, General Casey, had advocated.
    General Casey, you were one of the individuals who has been 
the architects of U.S. military strategy in Iraq over the last 
2 years. While there are very pressing questions about the 
future of the Army, you will of course in this hearing be asked 
to review the mistakes in American strategy in Iraq during your 
command, how the previous Iraq strategy was formulated, why it 
failed, why there were not changes sooner, and the lessons that 
were learned. You will also be asked to comment on progress in 
training and equipping the Iraqi security forces, to include 
your previous statements about their readiness. In addition, 
you will be asked to respond to questions about the President's 
new strategy, to include the troop increase and the command and 
control of American forces in Baghdad.
    You should expect questions about your role in planning and 
execution of the initial invasion of Iraq and post-Saddam Iraq, 
while you were assigned to key positions on the Joint Staff in 
the Pentagon from 2002 to 2004. You will need to explain why 
your assessment of the situation in Iraq has differed so 
radically from that of most observers and why your predictions 
of future success have been so unrealistically rosy.
    During my trip to Iraq in early 2005, you predicted a 
significant decline in violence over the remainder of the year 
as the democratic process took hold and as more Iraqi troops 
were trained. One year later during another visit to Iraq, I 
heard nearly the same predictions, with the time line simply 
pushed back by a year. In December during a trip that several 
other Senators and I made to Iraq, you stated that we were 
winning in Iraq and that every day we are making progress 
toward meeting our strategic objectives.
    Just this month, you predicted publicly that there would be 
progress, ``gradually over the next 60 to 80 days,'' and that 
people in Baghdad would probably feel safe in their 
neighborhoods by the summer.
    In light of these remarks and decisions, I have expressed 
serious concerns about your nomination as Chief of Staff of the 
Army. My strong reservations persist. I look forward to your 
testimony.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    General Casey, would you please proceed with your opening 
statement.

 STATEMENT OF GEN GEORGE W. CASEY, JR., USA, FOR REAPPOINTMENT 
TO THE GRADE OF GENERAL AND TO BE CHIEF OF STAFF, UNITED STATES 
                              ARMY

    General Casey. I will, Senator. Thank you very much.
    Good morning, Mr. Chairman, Senator McCain, distinguished 
Senators. Thank you for the opportunity to testify before you 
today on my nomination to serve as the Army Chief of Staff. I 
am honored that the President nominated me to this important 
post and I thank you for considering the nomination.
    I also want to thank the members of the committee for the 
support they have provided to America's Army over the past 
years. We could not do what we are doing around the globe today 
without your support, so thank you for that.
    Let me begin by paying tribute to our troops and their 
families, the real heroes of the war on terror and the campaign 
in Iraq. The American people should be tremendously proud and 
grateful of the magnificent job the men and women of their 
Armed Forces are doing in a tough and demanding environment in 
Iraq. Over 3,000 men and women have given their lives to build 
a new Iraq, to bring liberty and democracy to 27 million 
Iraqis, and to ensure security for the United States of 
America. They will not be forgotten.
    I also want to acknowledge the families who make tremendous 
sacrifices on behalf of their loved ones a half a world away. 
They shoulder a heavy burden and we are blessed with their 
unwavering support. Courage is not reserved for the 
battlefield.
    I especially want to thank my bride of 36 years, Sheila, 
for her courage, grace, and support over the last 2\1/2\ years. 
She, like all our families of our deployed men and women, 
epitomizes the core values of duty and selfless service. So let 
me just say thank you, dear. My wife Sheila. [Applause.]
    My son, Ryan, and his wife, Laura; my son, Sean; and my 
brother-in-law, Dick O'Brien. That is the family.
    Mr. Chairman, I would like to assure you that I have 
thought hard about what it means to be the Chief of Staff of 
the Army and want to assure you that I am aware of the 
tremendous responsibilities associated with this office. I 
firmly believe in the Army's vision to remain the world's 
preeminent land power, relevant and ready to meet the 
challenges of the 21st century.
    In Iraq I have been in the unique position to watch a 
transformed Army deal with the challenges of 21st century 
warfare and I would like to share with you just three 
preliminary thoughts. First, the quality of the men and women 
of the U.S. Army are the best that I have seen in 36 years in 
service. They blend intellect, drive, compassion, courage, and 
commitment to succeed daily in a very difficult environment. 
Our soldiers and families are our most precious resource and 
they will be my top priority.
    Second, I see the power of the Army's transformation on the 
streets of Iraq every day. The enhanced capabilities of the 
modular units allow them to handle the complexities of the 
Iraqi environment. If I am confirmed you should expect to see 
continuity in the transformation initiatives that General Peter 
Schoomaker has put into action.
    Third, the men and women of the Army National Guard and the 
Army Reserve have been indispensable to our efforts in Iraq and 
we must contemplate and implement policies and procedures that 
recognize two facts: one, that we are approaching a point where 
about half of our Guard and Reserve soldiers will be combat 
veterans; and two, we require the continued participation of 
the Guard and Reserve in our operations around the world. While 
I know the Army has been aggressively working these issues, 
Guard and Reserve issues will have my full attention.
    I have seen our Army at war in the 21st century and believe 
my experience in that regard will be valuable to the Army. I am 
also conscious that Iraq is not the only future and as Chief of 
Staff of the Army, I will take a broader view.
    Next, Mr. Chairman, I would like just to say a few words 
about Iraq. Just 2\1/2\ years ago, Iraq was totally dependent 
on coalition forces for security. Today Iraqis are poised to 
assume responsibility for their own security by the end of 
2007, still with some level of support from us. The path that 
brought us to this point has not been easy, but it has been 
part of a concerted effort to build an Iraq that can secure, 
sustain, and govern itself.
    Sectarian violence is the greatest threat to Iraq's ability 
to accomplish this objective and to move forward. Since 
February with the bombing of the al-Askari Mosque in Samarra, 
the sectarian violence in Iraq has greatly complicated our 
ability to accomplish our strategic objectives. It makes it 
harder for the population, traumatized by 3 decades under 
Saddam Hussein, to make the compromises necessary to equitably 
resolve what is the fundamental conflict in Iraq, the division 
of political and economic power among Iraqis.
    This is a challenge we can help them address, but one they 
must ultimately resolve themselves. I continue to firmly 
believe that enduring strategic success in Iraq must be 
achieved by Iraqis.
    I know there are questions in people's minds about where I 
stand on troop levels, particularly with respect to the most 
recent deployment of troops to Baghdad. There are no questions 
in my mind. I can tell you that I have been doing what I told 
you I would do 2\1/2\ years ago at my confirmation hearing. I 
told you I would ask for the troops I believed I required to 
accomplish the mission and I believe I have.
    Over the course of the mission I have asked for and 
received more troops at least six times: in support of the 
operation in Fallujah in late 2004; in support of the January 
2005 elections; to implement the transition team, the embed 
concept, in the spring of 2005; to support the October 
referendum and December elections in 2005; to support the 
Baghdad security plan in 2006; and again in December 2006 to 
reinforce Iraqi efforts in Baghdad. I have also sent troops 
home once, following the December 2005 elections as a result of 
improvements in the Iraqi security forces over the course of 
the year.
    Now, with respect to my most recent request for forces, the 
planning began in November shortly after we changed out the 
Baghdad division. There was a normal rotation of divisions in 
Baghdad in the middle of November. The corps commander and I at 
that time sat down with the new commander and gave him our 
intent and told him to take a blank sheet of paper and tell us 
what it would take to help the Iraqis restore stability in 
their capital.
    This is part of a continuous assessment process that we 
have ongoing there. We are constantly looking at how we are 
doing, what we should be doing differently.
    Around the same time, the Iraqis came forward with their 
own approach, and together we developed the coordinated plan 
that we are now implementing. My commanders told me that they 
needed two brigades to implement this plan and I asked for 
those forces. At the same time we worked with the Iraqi prime 
minister to ensure that there was political commitment to the 
Baghdad effort.
    In a series of addresses following his meeting with the 
President in Amman and continuing through his Army Day address 
on January 6, Prime Minister Maliki announced the political 
commitments that we were looking for. We will continue to 
monitor the delivery on these commitments, but so far the 
results have been heartening.
    Now, some will ask, why cannot the Iraqi security forces do 
this by themselves? The Iraqi security forces are 2\1/2\ years 
into a 3\1/2\-year developmental process. They are not quite 
ready to assume security responsibility in Baghdad or Iraq. But 
they are increasingly ready and willing the take the lead in 
these security operations with our support.
    They are also challenged by sectarian tensions and actions 
that have shaken the confidence of some of their populations in 
their security forces. For the Iraqis to successfully assume 
and sustain the security responsibility, their security forces 
must emerge as the dominant security force in the country. To 
do this, political and militia influence over the security 
forces must be eliminated and levels of sectarian violence, 
particularly in the capital, must be brought down 
substantially, brought down to the point where the people in 
Baghdad can feel safe in their neighborhoods.
    This is what we are working toward in Baghdad. It will take 
time and the Iraqis do need our help.
    What we and the Iraqis are doing in Iraq is a hard, tough 
business. Fighting this type of campaign while rebuilding a 
dilapidated infrastructure, building a representative 
government where none existed before, and reconciling ethnic 
and sectarian differences makes it even more difficult and 
complex. The struggle in Iraq is winnable, but it will, as I 
have said before this committee, take patience and will.
    Mr. Chairman, in closing I would like to go back to the 
Army. I am a soldier. My roots are in the Army and I know the 
pride of wearing this uniform. You can say I have been part of 
the Army all my life. I was born in an Army hospital in Japan 
where my father was a member of the occupation forces. I am an 
Army brat that went to four high schools in three countries. 
Sheila and the boys grew up in the Army and my youngest son 
joined the Army Reserve as a private at age 34 because he too 
wanted to serve.
    I have devoted my life to the Army. I took hard jobs around 
the world because they were important to our country. I must 
admit I am amazed when I hear comments to the effect that I am 
being nominated as a reward. Mr. Chairman, the members of the 
committee know full well the challenges and the multitude of 
challenges facing the Army over the next 4 years. Service as 
Army Chief of Staff is not a reward; it is a duty. It is about 
service and it is about personal commitment to the men and 
women of the United States Army.
    If confirmed, I acknowledge the hard work ahead to maintain 
our position as the greatest army on the planet. I will need 
and ask for your help, and I pledge to work in partnership with 
you, Mr. Chairman, and the rest of the members of the committee 
and to consult with you frequently and candidly.
    Thank you for your attention. I look forward to taking your 
questions.
    Chairman Levin. General, thank you.
    We have a series of standard questions which we ask of all 
nominees. First, have you adhered to applicable laws and 
regulations governing conflicts of interest?
    General Casey. I have.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Casey. I have not.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    General Casey. I will.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Casey. I will.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    General Casey. They will.
    Chairman Levin. Do you agree if confirmed to appear and 
testify upon request before this committee?
    General Casey. I will.
    Chairman Levin. Do you agree to give your personal views 
when asked before this committee to do so, even if those views 
differ from the administration?
    General Casey. I will.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    General Casey. I will.
    Chairman Levin. Thank you.
    We will have a 6-minute first round of questions.
    General, we understand you support the President's 
strategy, the new strategy which involves a surge of troops 
into Iraq. You were asked for your recommendation and you 
apparently recommended two brigades, as you just testified to, 
based on your commander's recommendations to you?
    General Casey. That is correct.
    Chairman Levin. We asked General Abizaid back in November 
of last year when he appeared before this committee whether we 
needed more troops or he supported more troops going to Iraq. 
He said that he met with every divisional commander, General 
Casey, the Corps Commander, General Dempsey, ``We all talked 
together and I said, in your professional opinion if you were 
to bring in more American troops now does it add considerably 
to our ability to achieve success in Iraq? They all said no, 
and the reason is because we want Iraqis to do more. It is easy 
for the Iraqis to rely upon us to do this work. I believe that 
more American forces prevent the Iraqis from doing more, from 
taking more responsibility for their own future.''
    General Abizaid said that he spoke to you and that his 
opinion reflected your opinion and that of all the other 
commanders. Was that true when he said it?
    General Casey. I am not exactly sure when in November it 
was, but it was.
    Chairman Levin. So you have changed your view since 
November?
    General Casey. As I described in my opening testimony, 
Senator, in mid-November was when the reevaluation of the plan 
was taking place. I suspect John and I talked before that. That 
does reflect my general view on additional U.S. forces in Iraq.
    Chairman Levin. It reflects a general view, but then there 
was some kind of a reevaluation which took place in mid-
November?
    General Casey. That is right, Senator. We are constantly 
reevaluating how we are doing and what we need.
    Chairman Levin. But that position that General Abizaid 
stated was your position when you spoke to him in early 
November presumably still remains your general view?
    General Casey. That is correct.
    Chairman Levin. If that is your general view, what has 
changed? Why are you modifying your general view for this 
surge?
    General Casey. What has changed, Senator, is several 
things. One, the development of a plan, a new plan that was 
conceived by the Iraqis and worked in concert with us. So there 
is a plan that laid out requirements for those forces. So just 
to say do you need more forces is one thing. To say do you need 
more forces to execute this plan is quite another. We do need 
two additional brigades to implement that plan.
    Chairman Levin. The Iraqis came in with a plan that said 
they did not want any additional American forces inside of 
Baghdad; is that not true? That was their plan that was 
presented to the President in Amman?
    General Casey. I think that is a misunderstanding. I have 
read those newspaper reports. That was not the case. I was in 
Amman and that issue was never raised.
    Chairman Levin. So the Iraqis did not say that they did not 
seek American forces in Amman?
    General Casey. They did not.
    Chairman Levin. Did they seek American forces in Baghdad?
    General Casey. There was not a large, long discussion about 
the plan that they presented. They basically passed it across 
the table and there was actually quite a short discussion.
    Chairman Levin. Did the plan that they passed across the 
table include additional American troops?
    General Casey. It broadly identified the requirement for 
additional troops. I do not believe that it specified Iraqi or 
coalition. Now, for Prime Minister Maliki, he would generally 
rather not have additional coalition forces. That is his 
position. But he has listened to recommendations from his 
commander and from me about the need for these forces and he is 
accepting those forces on an as-needed basis.
    Chairman Levin. Basically he felt that more security forces 
were needed inside Baghdad? He did not specify that any 
coalition forces would be needed as part of that, but it came 
from you and others that if there are going to be additional 
forces inside of Baghdad that coalition forces would be needed 
to provide some supplementary support; is that fair?
    General Casey. That is fair, Senator.
    Chairman Levin. There is an article in this morning's Miami 
Herald which says the following: Jafari, when he was prime 
minister, recollected some meetings with U.S. officials and he 
said that in the meetings held twice a week he urged coalition 
forces to take action against the militias. In attendance, he 
said, were Army General George Casey, then the top U.S. 
commander in Iraq, the U.S. ambassador, the British ambassador, 
and a British general.
    Jafari said he asked the officials to force police and army 
recruits to pledge loyalty to the government and to consider a 
military strike against the militias while they were still 
isolated from the public. ``They were not cooperating with 
us,'' Jafari said.
    A former Jafari aide said he believed U.S. officials did 
not take action because they did not want to get involved in a 
political dispute between Jafari's Dawa Party and the Supreme 
Council for the Islamic Revolution in Iraq, Iraq's largest 
Shiite political party.
    Was that request made of you by Jafari when he was prime 
minister and is it true that we rejected that request, and if 
so for what reason?
    General Casey. I just want to make sure I have the specific 
request right. Could you please repeat what he said?
    Chairman Levin. He asked officials--that is you; you are 
the only named one by name; he mentioned the ambassador and so 
forth. But by name he said that he asked you and the others to, 
``force''--this is not a quote. This is the article that says 
this: that Jafari asked you to force police and army recruits 
to pledge loyalty to the government and to consider a military 
strike against the militias while they were still isolated from 
the public. Jafari then is quoted as saying ``They''--you--
``were not cooperating with us.''
    Could you comment on that?
    General Casey. I have not seen the article, Senator, but 
there is some strongly revisionist history going on there by 
the former prime minister.
    Chairman Levin. Strongly? I am sorry?
    General Casey. Revisionist history going on there by the 
former prime minister.
    I do not recall the request to force the police and army to 
pledge, but we have done that several times over the course of 
the last year both in the army and in the police, where the 
soldiers and the police have taken a loyalty pledge to the 
government. But I do not remember getting that request from the 
prime minister.
    Quite the contrary to him asking me to make a military 
strike, which I do not ever recall him asking me to take any 
action, particularly a military strike against militia, that 
government was an impediment to our action against the militia. 
He was working very hard on the political side of things to 
keep the Sadrists under control. But frankly, I went to him 
with a group several times to get him to take action and allow 
us to take military action against the militia, and was denied.
    We had difficulty getting him to even issue a statement on 
a weapons ban that his police and army officers wanted so that 
they could enforce the weapons ban on the streets of Iraq. He 
dragged his feet on that.
    Chairman Levin. Thank you, General.
    Senator McCain.
    Senator McCain. General Casey, I was interested in your 
opening statement, which continues to be optimistic. In recent 
days the Secretary of Defense, the Chairman of the Joint Chiefs 
of Staff, and General Abizaid's designated successor Admiral 
Fallon have all stated we are not winning and we had a failed 
strategy. Now, those are clearcut statements for the record.
    Do you agree with that assessment?
    General Casey. Do I agree that we have a failed strategy?
    Senator McCain. We had a failed policy and we are not 
winning.
    General Casey. Senator, I do not agree that we have a 
failed policy. I believe the President's new strategy will 
enhance the policy that we have.
    Senator McCain. So you view this change in strategy as just 
an enhancement of the previous policy?
    General Casey. It is a significant shift, but I believe it 
will be an enhancement over the current policy. The policy of 
training and equipping Iraqi security forces and gradually 
passing security responsibility to them as they are ready is 
still an important element of the current strategy and it is 
part of the Amman agreement.
    Senator McCain. So you disagree with the Secretary of 
Defense, the Chairman of the Joint Chiefs of Staff, and Admiral 
Fallon that we had a failed policy?
    General Casey. I do, Senator. I do not believe that the 
current policy has failed.
    Senator McCain. I would like to give you a quote. There are 
many quotes, but one I would be interested in your response to. 
A Pentagon press conference on December 16, 2004, ``My view of 
winning is that we are broadly on track to accomplishing our 
objectives, with Iraqi security forces that are capable of 
maintaining domestic order and denying Iraq as a safe haven for 
terror, I believe we are on track to get there by December 
2005.''
    Was that statement accurate that you made in 2004?
    General Casey. I do not recall the specifics of--
    Senator McCain. I have given you a direct quote from your 
statement.
    General Casey. It said that what would be ready by the end 
of 2005?
    Senator McCain. ``My view of winning is that we are broadly 
on track to accomplishing our objectives. With Iraqi security 
forces that are capable of maintaining domestic order and 
denying Iraq as a safe haven for terror, and I believe we are 
on track to get there by December 2005.''
    You made that statement in December 2004.
    General Casey. That obviously has not panned out. We have 
projections that we work on with the development of the 
security forces. Again, I do not remember the context of that, 
but the institutional aspects of building these security forces 
has always been programmed to take longer than that. So I am 
not quite sure what I was focusing on there. But it obviously 
has not panned out, Senator.
    Senator McCain. I do not want to belabor it, but there is a 
series of quotes. As short a time ago as October 11, 2006, `` 
`The idea that the country is aflame in sectarian violence is 
just not right,' Casey said. `I do not subscribe to the civil 
war idea.' ''
    September 30, 2005: ``We have a strategy and a plan for 
success in Iraq and we are broadly on track in achieving our 
goals.''
    General Casey, almost everybody that I know that has 
testified before this committee and talked to, has said we had 
a failed policy, we are not winning; those are the judgments, 
and ``serious mistakes were made.'' That is in the comments 
made by the President of the United States.
    Last year, in the month of December, we had the third 
highest number of American servicemen deaths in Iraq, as you 
well know.
    Do you believe that this job, this change in strategy or, 
as you call it the new job, can be done with less than five 
brigades that General Petraeus says he needs?
    General Casey. I believe that the job in Baghdad as it is 
designed now can be done with less than that. But having the 
flexibility to have the other three brigades on a deployment 
cycle gives General Petraeus great flexibility. It allows him 
to make assessments on whether the plan is working or not and 
to either reinforce success, maintain momentum, or put more 
forces in a place where the plans are not working.
    I believe that this five brigade plan gives great 
flexibility to General Petraeus at a very important time in the 
mission.
    Senator McCain. This is a time when almost all of our major 
concerns and military experts' major concern is whether five 
brigades are enough, and a very short time ago you simply asked 
for two brigades. We just have a fundamental disagreement, 
General Casey, with facts on the ground and with what has 
happened in Iraq over now one of the longest wars in our 
history and where we are today.
    I believe it is abundantly clear that we are at a point in 
Iraq where we are going to have to succeed within in the coming 
months or we are going to have to experience catastrophic 
consequences associated with it. It took us a long time to get 
where we are today. I do not believe that from the beginning 
when General Shinseki's testimony before this committee was 
repudiated and he was removed from his job because he said we 
needed a sufficient number of troops that would have done the 
job, throughout we have paid a very heavy price in American 
blood and treasure in what the Secretary of Defense, the 
Chairman of the Joint Chiefs of Staff, and the new Commander of 
Central Command (CENTCOM) say is a ``failed policy.''
    I regret that we were not given better and more accurate 
information as these past years unfolded.
    I could ask you to respond to an abundance of quotes I have 
here in front of me that painted a very optimistic and rosy 
scenario, which did not comport in the view of many of us with 
the actual conditions on the ground and that many of us who 
greatly feared that we would be in the critical situation that 
we are in today.
    So General, as I say, I do not question your honorable 
service. I have the most respect for you, your family, and 
their service to our Nation. I question seriously the judgment 
that was employed in your execution of your responsibilities in 
Iraq. We have paid a very heavy price in American blood and 
treasure because of what is now agreed to by literally everyone 
is a failed policy.
    I would be very happy to hear your response, General.
    General Casey. Senator, I do not think there is any 
question that the situation in the center of the country, 
particularly in the capital, is bad, and we are working very 
hard to rectify that. As I mentioned in my opening statement, 
the bombing of the al-Askari Mosque in February added a 
completely new dimension to our challenges in Iraq, and dealing 
with the sectarian violence and helping the Iraqis deal with 
sectarian violence has been a very significant challenge.
    As I also mentioned, the country will not be able to move 
forward with their security forces and it will not be able to 
move forward politically or economically until they come to 
grips with that situation.
    I recognize we have a fundamental disagreement and in my 
mind the question has always been should we do it or should 
they do it. ``It'' being restore security. What I have tried to 
do in my time there is strike the right balance that allowed 
the Iraqi security forces and the government to keep moving 
forward, but at the same time having enough coalition presence 
there so that we could get the job done.
    The situation in the capital, as you point out, is not 
good. It requires additional forces and I believe the flow plan 
to support that puts the forces in the right position and gives 
General Petraeus great flexibility.
    Senator McCain. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    General Casey, good morning. Let me pick up on something 
you said to Senator McCain, which is that you do not agree that 
our policy in Iraq has been a failure. I want to ask you why 
you think it has not been a failure.
    General Casey. The policy that I have been following has 
always been designed to do two things: to bring the insurgents 
and terrorists, the levels of violence, down to levels that 
could be contained by increasingly capable Iraqi security 
forces. That is happening in the better part of the country. It 
is not happening in Baghdad. It is not happening in Anbar. It 
is not happening in Diyala Province.
    Senator Lieberman. So you would say--and do not let me put 
words in your mouth--that while there have been failures, 
disappointments, in Baghdad as of today, that the policy that 
you followed has succeeded in other parts of Iraq?
    General Casey. There are three provinces in southern Iraq 
that are already under provincial Iraqi control. The fight that 
took place earlier this week in Najaf Province took place in a 
province that was under Iraqi control.
    Senator Lieberman. Right.
    General Casey. It worked just like we had laid out in the 
memorandums of understanding. The police found it. It was too 
much for them. They called the Iraqi army. The Iraqi army came, 
it was too much for them, they called us. But the Iraqis dealt 
with it with our support.
    There are three provinces in the north, the Kurdish 
provinces, that once they resolve some disagreements with the 
government over budget they will also fall under Iraqi control, 
and other provinces are projected over the course of the rest 
of this year to assume responsibility for their own security.
    That process is working. It is working slowly, but it is 
working.
    Senator Lieberman. So if you were asked a different kind of 
question, which is whether you believe the situation in Iraq is 
deteriorating, is it fair to say that you would say it is not 
deteriorating in most of the country, but is in Baghdad?
    General Casey. I would say the situation is definitely 
deteriorating in Baghdad, in the center of the country. It is 
not necessarily deteriorating across Iraq. I want to say 14 of 
the 18 provinces have 10 or less incidents of violence a day. 
Baghdad has 30 or 40 incidents a day, to give you some 
comparison.
    The levels of violence in the capital are significant. Now, 
it is the capital of the country and we should not discount the 
impact that not being able to control their capital has on the 
government and has on the rest of the country. That is really 
our challenge.
    Senator Lieberman. Am I correct to conclude from what you 
have said earlier this morning that you support the new 
military, economic, and political plan for Iraq as the 
President has announced it?
    General Casey. I do, Senator, and I was consulted on that. 
I participated in the development of the strategy.
    Senator Lieberman. Do you believe that it will succeed?
    General Casey. I believe that it can work.
    Senator Lieberman. Right.
    General Casey. As I have said, in war there are no 
guarantees. But this plan, I believe it is the appropriate 
strategy and it has the appropriate levels of resources 
attached to it. So I believe the plan can work.
    Senator Lieberman. I presume you are saying that you 
believe it has a higher probability of working than any other 
plan you have heard described?
    General Casey. That is a fair statement, Senator.
    Senator Lieberman. One of the other alternatives being 
discussed by some of our colleagues is to mandate the beginning 
of a withdrawal within a set period of months. How would you 
evaluate that as an alternative path to success in Iraq?
    General Casey. As the commander, I would resist any type of 
mandated timetables that would limit my flexibility to deal 
with the situation on the ground.
    Senator Lieberman. Do you fear that if we in fact began to 
withdraw that the situation in Iraq would deteriorate even 
further, in other words withdraw on a deadline as opposed to 
based on improved conditions there?
    General Casey. As I said, I do not believe that a mandated 
timetable not tied to conditions on the ground would be 
helpful. My sense is people on the ground would take advantage 
of that.
    Senator Lieberman. Understood.
    Let me ask you a few questions actually about the job for 
which you are being nominated, Chief of Staff of the Army. 
Would you say, based on the Army's involvement in Iraq and 
other circumstances, that the U.S. Army today is broken?
    General Casey. No, Senator, I would not. I came in the Army 
36 years ago and I saw a broken Army. The first platoon I 
walked into as a lieutenant in my first assignment in Germany 
had nine people in it and four of those people were pending 
discharge. We did not have money to train, we did not have 
money to fix our vehicles.
    I can remember guys painting over bumper numbers, the 
vehicle identification number on a vehicle, because they only 
had one that worked and when they had an inspection they 
changed the number and take that vehicle up because it was the 
only one that worked. It was broken badly.
    Senator Lieberman. But it is not now?
    General Casey. I see in Iraq every day a splendid Army. 
Now, I know that General Schoomaker has problems with the 
forces yet to deploy and some of the strategic elements that 
will deploy later, but from what I see in Iraq, Senator, the 
Army is far from broken.
    Senator Lieberman. I agree with you, of course. It is the 
best in the world, and I believe the best we have ever had.
    I want to ask you a final question about the increase in 
end strength that the President and Secretary Gates are 
recommending to take the Army up to 540,000. Is that adequate?
    General Casey. Senator, in the short time I have been back 
and plugged into Army issues, I am being told by the Army Staff 
that that is in fact adequate now. However, they have an 
analysis process that they repeatedly run and they will 
continue to look at whether it is sufficient to meet their 
needs over time. But right now I am being told it is 
sufficient.
    Senator Lieberman. My time is up. Thank you, General Casey.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Warner.
    Senator Warner. General Casey, thank you for reciting your 
commitment personally and that of your family to the United 
States Army. You did not make reference to your father and the 
fact that he was a very brave soldier. He was a two-star 
general commanding the First Infantry Division in Vietnam and 
lost his life in the line of duty. I think it is important that 
we look at the total of the individual that is before us today 
and that is an important factor, because you have to inspire. 
One of your major responsibilities as the Chief of Staff of the 
Army is to inspire your people, to set the example to continue 
on so that America can enjoy the finest Army of any in the 
world.
    I want to go back to your comments just now about your 
participation in this new plan and particularly the comments of 
my colleagues, which are accurate, about the ever-widening 
circle of individuals talking about a failed policy, certainly 
during calendar year 2006. Having served in the Pentagon myself 
as a part of the civilian team, I know full well how under our 
Constitution ever since George Washington civilians are in 
charge of our military. They devise the policy, they issue the 
orders, and our military individuals carry out those orders, or 
at times I have seen senior officers respectfully disagree and, 
frankly, resign rather than carry out a policy which they feel 
is wrong.
    I judge that the policy and the orders that you carried out 
were consistent with those traditions and that you were given 
orders, and in this instance we should bear in mind that you 
were subordinate to CENTCOM Commander, General John Abizaid, 
whom I have a great deal of confidence in as a military 
commander. Is that not correct?
    General Casey. That is correct, Senator.
    Senator Warner. That he in turn received his orders from 
the President, transmitted in some respects through the 
Chairman of the Joint Chiefs; is that not correct?
    General Casey. That is correct, Senator.
    Senator Warner. Now, did you feel free at any time to reach 
out and question the orders that you were given to carry out?
    General Casey. I did, Senator. In fact, there was a strong 
dialogue about the policy between both our civilian leadership 
and General Abizaid and myself. I believe in the policy that I 
am implementing, Senator Warner. Did I not believe in it, I 
would have taken other actions, as you suggested.
    Senator Warner. It seems to me that as we assess the 
accountability for the past that where--and I think you today 
indicated you accept your share of the responsibility----
    General Casey. I do.
    Senator Warner.--an equal if not a greater share falls upon 
the civilians that devised the policy and issued the orders.
    Now, we come down to this very critical point you made 
here, and I copied it down pretty carefully. You said that when 
you were working on the new strategy, the plan enunciated by 
the President on January 10, that you felt two brigades; I 
expect you changed that to ``brigades''--were sufficient to 
carry it out, with an augmentation of the marines of a 
battalion or two in Anbar; is that correct?
    General Casey. That is correct. I do not want to put too 
fine a point on this, but what you are talking about, are 
requirements for the Baghdad security plan.
    Senator Warner. That is correct.
    General Casey. I would differentiate that from the 
President's strategy. But the Baghdad plan is part of that 
strategy.
    Senator Warner. At what point did you say to someone that 
you need two more brigades and an additional battalion in 
Anbar? Was it not a part of the planning phases of the January 
10 plan or was it separate?
    General Casey. Around right before Christmas is when I 
asked for the additional forces.
    Senator Warner. Was it to implement the plan that the 
President announced or a plan that you were devising with 
regard to increasing the level of security in Baghdad?
    General Casey. The latter, Senator. It was asked for 
because of the Baghdad security plan.
    Senator Warner. I see. So it was a part of your input into 
the thinking for a new plan to raise the level of security in 
Baghdad?
    General Casey. That is correct, Senator.
    Senator Warner. Then you say: ``well, I recognize that if 
you give the higher figure which is in the plan now, 20,500, 
that would give the new commander more flexibility.'' Had you 
remained as the commander would not you have wanted the 
additional flexibility of the additional increments of two more 
brigades?
    General Casey. I would have welcomed the flexibility of 
having access to three more brigades if I remained there.
    Senator Warner. But why did you not ask for the full 
complement of the four to five brigades, rather than just the 
two? Could it have been because of your concern and that of 
General Abizaid that the bringing on of additional troops was 
going into the face of a rising resentment among the Iraqi 
people for more and more troops?
    General Casey. Senator, my general belief is I did not want 
to bring one more American soldier into Iraq than was necessary 
to accomplish the mission. So what I asked for was the two 
brigades and the ability to maintain a reserve in Kuwait in 
case I needed additional flexibility.
    Senator Warner. All right. Let me go to the question of the 
extent we can use the trained Iraqi forces--and that training 
was done largely during your 2\1/2\ years--or turn in and bring 
in more U.S. forces, it is a constant balance. That is where, 
speaking for myself and I think some others who have associated 
with me on a resolution, we urge the President to look at all 
options to charge the Iraqis with a greater and greater degree 
of the new plan in Baghdad.
    They understand the language. They understand the culture 
and are better able to cope with this sectarian violence, which 
is so difficult to comprehend, and the killing. Why are we not 
putting greater emphasis on the utilization of Iraqi forces and 
less on the U.S. GI being put into that cauldron of terror 
generated by mistrust between the Iraqis and the Sunnis that 
goes back 1,400 years?
    General Casey. I would say, Senator, that we are relying 
more on the Iraqis and forcing the Iraqis to take a more 
leading role in resolving the situation in Baghdad. They came 
up with the plan. They will lead the plan. I agree with you, 
they are much better at understanding what is going on on the 
streets of their own country than our soldiers are.
    One of the challenges we have, though, I mentioned in my 
opening statement. It is the confidence of all the population 
in the different elements of their security forces. Largely, 
the Sunni population of Baghdad do not trust the police. So one 
of the schemes that will be used as part of this plan is joint 
manning with police, army, and coalition forces to do that. 
That is where the coalition comes in, because when they see us 
operating with the Iraqi police particularly the population has 
a greater level of confidence that the forces will treat them 
properly.
    Senator Warner. My time is up. My hope and my prayers are 
this plan succeeds, but it succeeds by a greater and greater 
reliance on the Iraqi forces and we will not have to use the 
full 20,500 Americans to implement this. Let the Iraqis step 
forward. We have trained them for 2\1/2\ years, invested a lot 
of time and money, and they should be the ones that carry the 
burden in Baghdad.
    General Casey. They are willing to do that.
    Chairman Levin. Thank you, Senator Warner.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    General Casey, thank you for your many years of service and 
your family's service to our Nation.
    Over the last 2 years I have been advocating benchmarks, 
measurable goals, to measure progress in Iraq. I know you have 
heard me say this previously. What benchmarks does General 
Petraeus need now to measure the military progress that we hope 
to be made in Iraq? What goals and how will we measure that?
    You have your own view about whether we have been 
successful in Iraq and you have stated that. You have General 
Jack Keane saying something different and others also saying it 
is a failed policy. How can we get something clear going in 
with a new plan, would that be benchmarks? How would we measure 
them and how could we tell whether they are a success and to 
what degree a success?
    General Casey. That is something that we have been working 
already in Baghdad here and I will just run down a few points. 
These are the things that we are thinking about as important 
elements to measure so that we can get some sense of progress.
    First of all, pretty simply a reduction in the lawlessness 
and the level of sectarian killings. We track that over time 
and I will say that over the last 5 or 6 weeks we actually have 
seen a gradual downturn in sectarian incidents. Now, there has 
been an upturn in the high profile attacks, the car bombs and 
suicide attacks. But in general there has been a downturn over 
the last 5 or 6 weeks.
    Second, we set as a goal, as I mentioned in my opening 
statement, we want to continue to work the security situation 
in Baghdad with the Iraqis until the people of Baghdad can feel 
safe in their neighborhood. We are seeing a systematic effort, 
primarily by the Shia militia, to move Sunni population out of 
mixed neighborhoods. We see it to a smaller scale in the Sunni 
neighborhoods. We have to help the Iraqis reverse that.
    Third, we believe that the Iraqi security forces have to 
emerge as the dominant security force with the confidence of 
the people of Baghdad. We measure that by polls over time and 
by our observations.
    Fourth, we think there needs to be improvement in the basic 
needs in Baghdad, we and the Iraqis are supporting economic 
plans to raise the level of services.
    Fifth, we think it is important to turn the population 
against violence in general, and we measure that, their 
feelings on that, through polls.
    Finally, we think it is important that political and 
religious leaders actively engage in efforts to lessen the 
tensions, and so we would measure that by the active engagement 
of the leaders.
    So those are some of the metrics that we are thinking 
about, using, and will use to measure progress in Baghdad.
    Senator Ben Nelson. With this plan, this looks like these 
are now conditions for staying. I have been advocating 
conditions for staying as opposed to dates for withdrawal or 
mandated troop reductions or other programs of that kind. If we 
measure against these benchmarks that you just identified and 
we are not succeeding, are there consequences or is it just the 
opportunity to now change plans and come with a new plan?
    Are these benchmarks conditions for staying or are they 
just benchmarks for evaluating a plan?
    General Casey. Senator, I am sorry. I am not quite sure 
what you mean about conditions for staying.
    Senator Ben Nelson. If these benchmarks all end up with a 
failing grade do we just change the plan or do we begin to say, 
these are conditions now for leaving. In other words, I 
understand you have to modify plans along the way. Are we just 
modifying the plan along the way or are there true consequences 
if the Iraqis do not step forward, if they do not stand up 
their forces, if they cannot quell the violence in their 
neighborhoods, if they cannot take the lead? Do we consider 
that just the consequences that mean we will have to change the 
plan or does it mean we begin to think about withdrawing?
    General Casey. I understand now, Senator. The metrics I 
described to you are metrics to measure progress in the plan. 
They are not anything beyond that. Now, you ask are there 
consequences of the plan not progressing or the Iraqis not 
meeting their commitments. That is a political judgment that we 
would work with the government.
    We review these metrics. We review these metrics with the 
government and tell them what they are doing or not doing as a 
means of continuing to move the plan forward.
    Senator Ben Nelson. We understand the problem that any 
democracy or attempted democracy has with militias involved in 
their military or in their government. If the Iraqis are 
unwilling to move forward in Sadr City against Moqutada al-Sadr 
and the Mahdi Army, would that be a pretty good indication that 
the plan is not succeeding or would that be a reason to believe 
that maybe our commitment to Iraq should be reevaluated?
    General Casey. It is a hypothetical, Senator, but if we 
were denied access to Sadr City, I would consider that a 
significant breach in the commitments that the prime minister 
has already made and we would have to have serious discussions 
with the government.
    Senator Ben Nelson. But have we not already been denied 
access to certain political leaders? Have we not already been 
denied access to take certain actions against the militias or 
other instances where they have told us no for political 
reasons or for other reasons?
    General Casey. In the past they have, Senator. But I will 
tell you, in the past probably 2 months we have not been denied 
access to any target and the prime minister is doing what he 
said he was going to do. He was going to target everyone who is 
breaking the law.
    Senator Ben Nelson. Have we asked for access to the Mahdi 
Army and al-Sadr?
    General Casey. We are actively working our plans for Sadr 
City with the Iraqis.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me first say how difficult this is because it seems as 
if each time I have been in the area of responsibility (AOR), 
which has been 12 times, I have come back with great success 
stories. I can remember when General Madhi Hashim took over in 
Fallujah. He, at one time, was Saddam Hussein's brigade 
commander and became really very close and enamored with our 
Marines up there, and they have done a great job. In fact, he 
later on was moved down to Baghdad to perform security there. I 
can remember a trip shortly after that where this general was 
in charge of, I believe, the entire eastern one-third of 
Baghdad. We did not have any of our boots on the ground. The 
security was all provided by the Iraqis. Yet, after that it 
changed.
    I agree with Senator Warner, as everyone agrees, that we 
want to get to the point where these guys can take care of 
their own security.
    We have seen it moving around. But I want to spend my time 
on a couple of the real serious problems we have in the new 
job, if you are confirmed, that you will be facing. First one--
and you cannot wait until the change of command on this one 
because it is critical today and I think the most critical 
thing that you better be thinking about. I know that General 
Peter Schoomaker is. I had dinner with him a couple nights ago. 
He is most concerned about that, and that is the required 
implementation of the base realignment and closure (BRAC) that 
we passed.
    It is interesting for me to bring this up because I was one 
of those who was opposed to having this BRAC round. The reason, 
General Casey, is because I said on the Senate floor: Yes, it 
may be true that this BRAC round will save $20 billion, but 
that is not going to be immediate. It is going to cost us money 
in the mean time.
    Now, the Continuing Resolution (CR) that the majority has, 
and hopefully the Democrats will massage this a little bit and 
correct this problem, shorts the account for military 
construction under the BRAC by $3.1 billion. Now, in the event 
that that is not done, can you explain the implementation or 
the problems that we are going to be facing if we do not 
properly fund that BRAC account in terms of our troops' 
rotation and the things that will not be done as a result of 
that shortage of $3.1 billion?
    General Casey. I could not talk about the specifics of 
that, but as you suggest a cut of that magnitude would have a 
huge impact on our ability to manage the installations across 
the Army, at a time when we are rotating soldiers back and 
forth to combat zones. But I have not been into the specifics 
on that.
    Senator Inhofe. I think it is time that you are. What I 
would like to ask you is by tomorrow, have for the record an 
outline of the problems that you will be facing in your new 
job, if you are confirmed, if we do not adequately fund that 
BRAC account. I do not know how you are going to do it. How can 
you plan in the future?
    Right now we have come up with good plans to start rotating 
troops and bringing them back. We have very carefully designed 
this as to what the housing is going to be, and how we are 
going to implement that. That is going to be a serious problem.
    So I would like to have that--after you have consulted with 
General Schoomaker and other people--so I can be talking about 
this.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Inhofe. Now, of all the jobs, the tough jobs, I 
know you had the toughest job in the world over there, but for 
right now I would like to have you forget about that and think 
about the job that you would be facing as the Chief. You have 
title 10 responsibilities as the Chief to provide the required 
troops and equipment. You have the BRAC problem that we are 
talking about now.
    If I wanted to discourage you, I would remind you that the 
Army is facing equipment hurdles in bringing the troop surge to 
Iraq. It needs 1,500 more up-armored trucks. The Army is going 
to have to draw on prepositioned stocks and it will take 
months, probably the summer, to outfit the new vehicles. I had 
some conversations with General Schoomaker recently.
    I want to read something from his testimony before this 
committee. He said: ``To meet combatant commanders' immediate 
needs, we pulled equipment from across the force to equip the 
soldiers deploying in harm's way. This practice, which we are 
continuing today, increases risk of our next-to-deploy units. 
It limits our ability to respond to emerging strategic 
contingencies.''
    The Army National Guard right now has only 40 percent of 
their required equipment. Then we have the Future Combat System 
(FCS), and every time we need money we move that FCS to the 
right and delay its implementation. Until we finish that, we 
are sending our kids out to battle in equipment that is not as 
good as our potential adversaries could have.
    These are huge problems. I am not going to ask you to solve 
the problems this morning, but I would just like to have you 
address: What background and unique characteristics do you have 
to meet these, these really critical problems that you will be 
facing?
    General Casey. Thank you, Senator.
    These are the basic resource modernization challenges and 
tradeoffs that I think that I faced as the Vice Chief of Staff 
of the Army when we were working on the FCS system back then.
    Senator Inhofe. You have always been a real strong 
supporter of that. I am talking about from this point forward 
with these new competitions for funds; how are we going to do 
this and you have already said, in the previous position that 
you held you did face these problems.
    General Casey. Right. It is standard operational 
requirements: strategy, modernization, and resources. One of my 
jobs as the Chief of Staff of the Army will be to strike the 
appropriate balance between current demands and current 
readiness and our ability, as you suggest, to field the type of 
force that we are going to need in the next decade. That I 
think in a nutshell is what I will be doing as the Chief of 
Staff of the Army.
    Senator Inhofe. I appreciate that. So if you would for the 
record bring back what I was asking for tomorrow, that would be 
very helpful to me and to many of us on this panel, bringing to 
the surface the serious problem that is there.
    I would say, in response to that last question that I asked 
you, that it is going to be a real tough job and I think you 
are the man for the job. Thank you for your service.
    General Casey. Thank you, Senator.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman, and thanks to 
you, General Casey, for your years of service, and thanks also 
to your family because they have served along with you, and we 
are grateful to all of you.
    I want to follow up on the line of questioning Senator 
Inhofe was pursuing because I have been concerned about the 
readiness level of units being deployed to Iraq, and in last 
year's National Defense Authorization Bill, I authored an 
amendment that was included in the final act, that would 
require the Government Accountability Office to conduct a 
comprehensive assessment of the readiness of our ground forces 
within the Army and Marine Corps no later than June 1 of this 
year.
    But even before that report is completed, there have been a 
series of disturbing reports that our troops do not have the 
equipment they need as they are being deployed to Iraq. At a 
January 23, House Armed Services Committee hearing, General 
Schoomaker stated, ``We are in a dangerous, uncertain, and 
unpredictable time,'' and reiterated his concerns about the 
readiness levels of non-deployed combat units.
    Five combat brigade teams are deploying to Iraq to support 
the proposed escalation of U.S. forces there. These units are 
part of the pool of nondeployed combat units. General, I want 
to ask a series of questions that follow up on our conversation 
yesterday in my office, because I know this is a grave concern 
to you and to all of us.
    Are you at this point able to assert with a 100-percent 
level of confidence to this committee that every soldier being 
deployed to Iraq as part of this escalation will have all the 
necessary personal equipment?
    General Casey. Senator, that is my goal and I know that is 
General Pete Schoomaker's goal, and we work very hard to ensure 
that that happens.
    Senator Clinton. Can you similarly assure us that every 
soldier being deployed as part of this escalation will receive 
all the necessary training for this dangerous assignment?
    General Casey. Again, that is the objective that both 
General Schoomaker and I have stated to our organizations.
    Senator Clinton. Finally, will each and every soldier being 
deployed as part of this escalation have all the necessary 
force protection available to them to perform their mission?
    General Casey. As I mentioned to you yesterday, I gave that 
guidance several weeks ago, that that would in fact be the 
case.
    Senator Clinton. Now, according to yesterday's Business 
Week summary of a new Department of Defense (DOD) Inspector 
General (IG) report, the IG is concerned that the U.S. military 
has failed to adequately equip soldiers in Iraq and 
Afghanistan, especially for nontraditional duties such as 
training Iraqi security forces and handling detainees.
    The equipment shortages were attributed to basic management 
failures among military commanders in Iraq and Afghanistan. 
U.S. CENTCOM lacks standard policies for requesting and 
tracking equipment requirements for units to perform their 
duties.
    General, have you seen this IG's report?
    General Casey. I have not, Senator.
    Senator Clinton. Mr. Chairman, I would like to ask that the 
committee request a copy of the IG's report that was referred 
to in the Business Week story and that it be made available to 
the committee as soon as possible.
    Chairman Levin. It will be requested and will be shared 
with everybody.
    Senator Clinton. General, as commander of U.S. forces in 
Iraq were you aware of the IG's investigation?
    General Casey. This is the Special Inspector General for 
Iraq Reconstruction's (SIGIR) report?
    Senator Clinton. Yes.
    General Casey. I am aware of a continuing IG process going 
on. I was not aware of this specific investigation. I know they 
are out there all the time doing a range of investigations.
    Senator Clinton. Do you know if any member of your command 
cooperated with this particular report?
    General Casey. I do not, but I assume they do because they 
routinely work with the SIGIRs in doing that reports.
    Senator Clinton. Could you report back to the committee 
what your find about the level of cooperation with this report, 
please?
    General Casey. I will, Senator.
    [The information referred to follows:]

    The information requested was provided by General Casey on February 
16, 2007, in the attached letter.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Clinton. Thank you.
    Are you aware of the problems that are apparently cited in 
this report, as set forth in press accounts of it?
    General Casey. I am not. I am actually a little surprised. 
I think you said it was the equipping of transition teams, I 
spend a lot of personal time making sure that these teams have 
the best equipment because they operate relatively 
independently, and we have gone to great lengths to make sure 
they have the equipment. I go up and talk to each group as they 
come through and I have not heard any mention of the transition 
teams being shortchanged on equipment.
    Chairman Levin. Senator Clinton, if I could just interrupt. 
We did receive that IG report that you referred to, apparently 
last night, and it is now in our files. It is classified 
Secret, so when you read it if there are parts of it that you 
feel should be declassified we will make those requests.
    Sorry for the interruption.
    Senator Clinton. No. I would appreciate that, Mr. Chairman, 
because earlier this week I questioned Admiral Fallon about an 
article in the Washington Post titled ``Equipment for Added 
Troops Is Lacking, New Iraq Forces Must Make Do, Officials 
Say.'' Mr. Chairman, I would like that article to become a part 
of the record of this hearing as well.
    Chairman Levin. It will be part of the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Clinton. After the hearing, the chairman and 
ranking member sent a letter to Secretary Gates asking about 
the readiness of our troops. In that article were very specific 
and disturbing questions from Lieutenant General Stephen 
Speakes and others about the lack of equipment, the lack of 
readiness. Among the concerns were the proper level of armor 
for vehicles, prepositioned sets issued in Kuwait are the add-
on armor type and do not provide adequate protection, 
insufficient add-on armor kits for logistics trucks and prime 
movers, insufficient and incomplete electronic countermeasure 
devices designed to defeat improvised explosive devices, 
insufficient force protection materials for the outposts we are 
building in Baghdad and throughout Anbar Province, insufficient 
training sets of equipment and vehicles at home station for 
units to train on in preparation for deployments.
    I am very concerned that we are pursuing a policy that, 
regardless of what one thinks about it or how one evaluates its 
chances for success, certainly raises the fears that so many of 
our young men and women are going to be put into very dangerous 
situations in neighborhoods in Baghdad, dependent upon their 
Iraqi counterparts who may or may not be reliable. Mr. 
Chairman, I believe that because of these disturbing reports 
about equipment shortages we should as we begin to debate the 
Warner-Levin proposal include provisions that require that 
adequate equipment and training be mandated so that we do not 
send any young American into this dangerous mission without 
knowing that they are as well-prepared, as ready and equipped 
as they deserve to be to try to fulfill this mission.
    General Casey. I do not think anyone feels stronger about 
that than I do, Senator.
    Senator Clinton. Thank you, General.
    Chairman Levin. Thank you, Senator Clinton.
    Senator Chambliss, going according to the list that I have 
is always a little bit awkward, but we have an early bird rule 
and I just follow what our clerk tells me, is the earliest 
birds get the worm.
    Senator Chambliss. I do think Senator Sessions was here 
before I was, Mr. Chairman. I am happy to go, but he was here.
    Senator Sessions. I was here when you gaveled this hearing.
    Chairman Levin. I am going to call on Senator Sessions. If 
you would share this with Senator Sessions. Unhappily, you are 
not even listed on here. Our clerk is going to get a raise--get 
a rise out of me. [Laughter.]
    Thank you, and I appreciate that very much, Senator 
Chambliss.
    Senator Sessions, forgive the error.
    Senator Sessions. Thank you, Senator Chambliss. You are 
very gracious as always.
    Let me just ask you this, General Casey. You have been 
leading men in combat for some time now. As Chief of Staff of 
the Army, will you take every effort and utilize every power 
you have to ensure those soldiers when they hit the ground in 
Iraq are properly equipped and supported?
    General Casey. And trained, I will.
    Senator Sessions. With regard to the soldiers that are 
going there, they are fully equipped with their $17,000-plus 
worth of equipment and all that goes for each soldier; is that 
right?
    General Casey. Yes.
    Senator Sessions. We had testimony the other day that two 
or three of the brigades would be ready to go fully equipped 
and a couple of brigades may lack some uparmored vehicles or 
transport vehicles and that they were working on that. But if 
you can confirm you will utilize every power you have to make 
sure those brigades are fully equipped?
    General Casey. I will, Senator. In fact, I gave 
instructions several weeks ago in Iraq that we would not bring 
anybody in who was not prepared.
    Senator Sessions. So if they do not send them to you 
properly equipped you are not going to put them on the street?
    General Casey. Right.
    Senator Sessions. General Casey, thank you for your 
leadership and service to our Nation for 37 years. You were 
born in an Army hospital in occupied Japan, son of an Army man. 
I do not know if he was an officer or not. My father served in 
occupied Japan and I guess one of the great things in the 
history of the world is MacArthur and our military's efforts to 
create a prosperous, free Japan today. It is one of the great 
things that happened in our world. We have invested a lot of 
effort now in trying to bring Iraq to some such level as that. 
That would be our dream.
    You now have a son in the military. So I know that many of 
us are frustrated about troop levels and strategies and plans. 
I would just say this. I liked it a while ago when you said you 
did not want to ask for one more soldier to be sent to Iraq 
than you believed was absolutely needed. I think that is where 
most of the American people are. That is where the people are 
who are dubious of this war. That is where the people are who 
support our efforts, like I do.
    I do not want to send a single person there that is not 
necessary. I want to add this in as part of my thanks to you. 
You were Vice Chief of Staff of the United States Army. They 
asked you to go to Iraq for 18 months to deal with the 
challenges there. You accepted that responsibility. You went 
and you have stayed now 30 months away from your family, giving 
your every waking moment to a successful policy there. I thank 
you for that.
    I cannot see how that can do anything but help you be a 
more effective, sensitive, knowledgeable Chief of Staff of the 
Army. So I think I wanted to say that.
    General Casey. Thank you, Senator.
    Senator Sessions. I think it was a general in the German 
army that said few strategies exist beyond the first shot of 
the war. Things change. They really change rapidly, do they 
not, in an asymmetrical insurgency type situation we are facing 
in Iraq?
    General Casey. They do, Senator. It is interesting, the 
threat has changed three times in the 2\1/2\ years I have been 
there at my level, and at the tactical level it changes faster 
than that.
    Senator Sessions. General Petraeus wrote the 
counterinsurgency manual. It is filled with so many subtleties 
and demands on the military to alter and change tactics, 
strategies, and initiatives constantly in a struggle like this, 
would it not?
    General Casey. It is. In fact, in the summer of 2005 I was 
getting a sense that our soldiers were not really effectively 
applying what counterinsurgency doctrine that we have, and I 
sent a team out to check. What they came back and said is, they 
generally understand it, but not everybody has all the tools, 
and if the commander gets it, the unit gets it. So we 
established a counterinsurgency academy in Iraq where every 
brigade commander brings his battalion and company commanders 
through a week-long course to work on the subtleties and the 
nuances of counterinsurgency operations inside Iraq. It has 
proved very effective. Over 5,000 leaders have actually been 
through that course already and we are expanding it now to 
bring Iraqis in so that they can pick up the counterinsurgency 
operations.
    Senator Sessions. General Abizaid in a private conversation 
several years ago in Iraq on a C-130 when only the two of us 
could hear one another, and hardly that, explained to me his 
personal belief as to why we ought not to bring in more troops 
than necessary to do the job. There is a real tension there and 
you have touched it. I do not know, maybe Senator McCain is 
right. I do not know.
    But I have always adhered to his view, and I think you 
share it, that we want to keep the pressure on the Iraqis to 
step up their capability so it is their country and their 
nation that they are defending. If you bring in too much 
support it could erode or lessen the pressure on them to assume 
responsibility.
    Is that part of your analysis?
    General Casey. That is exactly right. I saw this in Bosnia 
myself as a brigadier general. I remember watching myself going 
out and trying to solve the problems of Bosnia and as a result 
my sense was that they became dependent on us and they did 
less.
    Senator Sessions. What about the Lawrence of Arabia quote? 
What is that? Can you recall that for us?
    General Casey. ``Better they do it imperfectly with their 
own hands than you do it perfectly with yours.'' I use that 
quote with each of the classes in the counterinsurgency 
academy.
    Senator Sessions. He was expert in the Arab culture, and 
that is I think good advice.
    It has been a struggle and it has been tough, and we are 
disappointed that it has not gone smoother. We all wish it had. 
But war requires leadership. Leaders make hard decisions. They 
accept responsibility for their decisions and we live with 
those decisions. You have made some tough decisions. I think 
you have done a good job. But whether or not we agree or 
disagree with every decision you have made, I believe we can 
all agree that your career as Vice Chief of the Army and this 
experience now, 30 months extended tour in Iraq, will help you 
to be even more effective as Chief of Staff of the Army, and I 
intend to support you.
    General Casey. Thank you, Senator.
    Senator Sessions. My time is up.
    Chairman Levin. Thank you, Senator Sessions, and I again 
apologize for the mistake here.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman. I apologize for 
having had to step out. I am trying to be in two places at once 
this morning. We had a Foreign Relations Committee hearing as 
well.
    General, I want to express my best wishes to you and to 
your family. My congratulations to you and my appreciation for 
the service that you have given. I would like in several 
different ways to associate myself with the comments that my 
fellow Senator from Virginia made. I do not think it is a 
consequence of the honor of representing Virginia so much as 
the fact that we both served in the Marine Corps, we both had 
the privilege of serving in that Pentagon as Secretary of the 
Navy, and I think it brings a little bit different focus on 
some of the questions that have been asked of you this morning.
    I think that a few of the questions that have been asked of 
you--I am not going to ask you to comment on this, but I think 
it bears saying--are evidence that your situation this morning 
represents the classic conundrum of military service at the 
highest level. In this administration it has not been unheard 
of for officers who spoke too loudly very often to have lost 
their jobs, and at the same time to speak too softly often 
causes the military leader in historical situations rather than 
the civilian boss to be blamed when things go wrong.
    I believe strongly that military leaders should be held 
accountable, but certainly in this situation today from a lot 
of people's perspectives, including my own, the consequences of 
what I believe has been a failed strategy should be shared at a 
far higher level.
    I have a question with respect to your assumption of your 
new responsibilities that I would like to ask of you, and it 
relates to the fact that we currently have an estimated 100,000 
civilian contractors working in Iraq. On the one hand, I have 
heard comments from many senior military leaders that clearly 
we could not do it without them--I hear this over and over 
again--because of force structure deficiencies that have been 
built into the end strength levels, particularly in the Army.
    At the same time, I have a concern about the cost of these 
people and also the accountability that pertains to this 
concept of, for lack of a better phrase, renting an army. This 
is a rent-an-army out there. The costs in many ways are 
obvious, particularly in the short-term. There are so many 
stories of individuals leaving Active Duty who are making maybe 
$20,000 and they can go over and work for five to nine times 
that and doing quasi-military work in the same country, pretty 
much doing the same kinds of things.
    The notion of accountability is deeply troubling. I am not 
aware of any cases where misconduct--and I am not talking about 
the contracting situation, which we are trying to get our arms 
around, but human misconduct--shooting Iraqis out in the 
villages, these sorts of things. I am not aware of any incident 
where that sort of misconduct has been brought to proper 
justice. There may be. There may be one or two, but I am not 
aware of it.
    So my question really is, would it not be better for this 
country if those tasks, particularly the quasi-military gun-
fighting task, were being performed by Active-Duty military 
soldiers, in terms of cost and accountability?
    General Casey. In terms of cost, I am not sure, Senator. We 
talked yesterday on this, the notion of what is the long-term 
cost to take a soldier, bring him in, train him to do this 
logistical task, and take care of his family, when you compare 
that to the cost of the logistics contract. I have not seen the 
figures on the cost-benefit on that.
    Senator Webb. I would be interested in having those as you 
assume your new job. I think it is something worthy of 
discussion on the costs.
    General Casey. I think the other part of this, though, it 
is important that these contractors are used for logistics type 
skills and not necessarily the combat skills I think you 
mentioned there earlier. We have I want to say about 20,000 
armed security contractors there that we have worked with and 
coordinate with. Those are the ones that we have to watch very 
carefully.
    Senator Webb. Another factor in this, and it does go into 
the way that our force structure levels have oscillated and the 
way that they are going to now, is the disruption of the 
rotational cycles and the hardship that puts on planning, on 
morale, particularly in the mid-term, of the Army and the 
Marine Corps to continue operating in Iraq. Do you have a 
comment on that?
    General Casey. By disruption in the rotation cycles, you 
mean extensions?
    Senator Webb. Extensions and accelerating deployments. We 
ideally want a two for one, let us say, cycle and we have been 
operating on one for ones, and I know the new Commandant has 
mentioned he very much wants to get back to a two to one for a 
lot of reasons, including morale.
    General Casey. I think it is clear that those extensions 
and accelerations place additional stress on the force. I do 
not think there is any question about that. I believe that is 
exactly what this increase in Army end strength is designed to 
alleviate. That will not happen overnight. It takes a while to 
build those forces.
    But I think it is interesting. I have already seen a 
brigade, one of these transformed brigades, that did not exist 
when I was the Vice Chief of the Army, has already been to Iraq 
and left. So it is not a long-term process, but it does take 
some time.
    Senator Webb. I am certainly hopeful that we can reduce the 
force structure so that we can have a different discussion 
regarding the end strength numbers that have been proposed. But 
certainly in the short-term we have a real problem here.
    If I may--my time has expired--I would just like to say one 
other thing. I would like again to associate myself with 
something that Senator Warner said and express my gratitude to 
your father for the service that he gave our country and for 
all of us to remember that he did give his life in service to 
our country.
    I grew up in the military as well. When you were sitting 
there talking about your schools, I counted. I put on a piece 
of paper, I went to nine schools in 5 years at one point 
traveling around in the career military. I know what that does 
to a family, and you and your family have my gratitude. Thank 
you very much.
    General Casey. Thank you, Senator.
    Chairman Levin. Thank you, Senator Webb.
    I think Senators Warner and Webb speak for all of us in 
referring to your father for his service and the way in which 
you have continued that tradition. It is important that we all 
recognize that legacy and that gift which he gave to his 
country.
    General Casey. Thank you.
    Chairman Levin. Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    As Mr. Webb was saying, he spent 5 years and went to nine 
schools. Senator Graham said he spent 9 years in the fifth 
grade. [Laughter.]
    Chairman Levin. Do you want equal time, Senator Graham? You 
can have equal time if you need that. [Laughter.]
    Senator Graham. I cannot rebut it. [Laughter.]
    Senator Chambliss. General Casey, first of all let me just 
echo the sentiments of all of us in thanking you and your 
family for the terrific commitment that you have all made to 
the service to our country and to tell you how much we 
appreciate that commitment. I know it is a family commitment, 
too. It is not just you. You are correct, without the support 
of your wife and your sons you would not be where you are 
today. So we do appreciate that.
    General, what is the role of the Army Chief of Staff in the 
decisionmaking process concerning the war in Iraq today?
    General Casey. As the Army Chief of Staff, I would sit as a 
member of the Joint Chiefs and have a direct role in 
formulating military advice to the Secretary of Defense and to 
the President.
    Senator Chambliss. So is there a difference in what you 
would do as Chief of Staff relative to the war inside of Iraq 
and outside of Iraq?
    General Casey. If I think I understand the direction here, 
Senator, inside Iraq I would be looking primarily inside Iraq 
and looking at the appropriate strategies to apply in Iraq. As 
a member of the Joint Chiefs, I believe I would be looking at a 
broader context and how the war in Iraq fit broadly into our 
overall security strategies of the United States.
    Senator Chambliss. You have been Commander of the MNF-I for 
2\1/2\ years. We cannot say that it has been a successful 2\1/
2\ years. The situation over there is very dire right now. What 
do you bring to the table as potentially the next Chief of 
Staff of the Army that you did not bring to the table as 
Commander of the MNF-I?
    General Casey. That is a good question, Senator. I agree 
with you, the situation in Iraq is certainly not where I 
thought it would be when I was going out the door, and I am no 
more comfortable with the situation in Iraq than you or anybody 
else is.
    I will tell you that the experience I have gained in 2\1/2\ 
years in a very difficult environment has seasoned me in ways I 
probably do not even fully understand now. I have had to deal 
at the highest levels of our Government. I have mentored three 
Iraqi prime ministers in political-military interactions. I 
have dealt with three different ambassadors, four coalition 
corps commanders.
    I have learned an awful lot about strategic leadership and 
I believe that will help me greatly as the Chief of Staff of 
the Army. I mentioned some of the more narrow insights that I 
received in terms of people, transformation, and Guard and 
Reserve matters. But I think the big thing that I will bring 
back from Iraq is the seasoning and strategic leadership skills 
that I gained over 2\1/2\ years.
    Senator Chambliss. General, you and I have had a couple of 
private conversations about troop strength in Iraq, and 
obviously you did not think we needed additional troops early 
on and you have now come to the realization that you think we 
do. At a press conference in October 2006 when you were asked 
if more troops are needed, ``Maybe, and, as I have said all 
along, if we do I will ask for the troops that I need, both 
coalition and Iraqis.''
    Now, some time after October 2006 into November-December, 
apparently you concurred in the fact that an additional two 
brigades originally were needed. The President has made a 
decision to send an additional four brigades into Iraq and you 
concur in that decision. Take me through that process. What 
changed your mind? How do you decide now that you concur, that 
in October we did not need troops, November we need two 
brigades, now you agree we need four brigades?
    General Casey. I laid a little bit of that out in my 
opening testimony, Senator, but let me just review the bidding. 
We are constantly looking at the situation in Baghdad, looking 
for ways to improve it. In the middle of November, the Baghdad 
division changed and we had a new commander in there, so it was 
an opportunity for us to take a fresh look at the situation 
with a new set of eyes.
    I sat down with him and the corps commander and said: Take 
a blank piece of paper and look at this hard and tell us what 
you need to help the Iraqis stabilize their capital. At the 
same time, the Iraqis came forward with their plan, and this is 
the plan for nine districts with an Iraqi brigade and a 
coalition battalion in each district. We worked that with the 
Iraqis and have continued to develop that over time.
    As my commanders and the Iraqis worked that plan, they came 
back and said: We are two brigades short; we need two 
additional coalition brigades and three Iraqi brigades to make 
this plan work. That evolution went from about the middle of 
November until the latter part of December, and right before 
Christmas I asked for the additional two brigades.
    Now, there were three other brigades that were offered and 
they were flowing on a time line that allowed us to make 
assessments on whether or not they would be needed. As I said, 
my bias is that I do not want to bring one more soldier in 
there than we need. I was okay with having those forces 
basically in reserve to be called forward if necessary. Now 
that I am leaving, having those forces in reserve and prepared 
to come I think gives General Petraeus, the new commander 
there, great flexibility to do what he thinks he needs to do. 
He will probably look at things differently than I do.
    That is how my thinking has evolved. But I always again go 
back to my base case, which is I do not want to bring one more 
American soldier or marine in there than I think we need to do 
the job.
    Senator Chambliss. If General Petraeus comes to you as the 
Army Chief of Staff and said, I need additional assets, 
including additional troops, if we are truly going to 
successful in this operation, are you going to give them to 
him?
    General Casey. I will, Senator. In fact, I will tell him 
the same thing that Pete Schoomaker told me when I went to Iraq 
2\1/2\ years ago, and that was: Ask for what you need; we will 
figure it out.
    Senator Chambliss. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    We are now aware that about $38 billion of taxpayer money 
has been spent on what was proposed to be a reconstruction 
effort in Iraq. I think it would be kind to say that most 
analyses of those expenditures would indicate that all or most 
of it appears to not have been effectively used, since if you 
look at the measures of electricity produced and oil and the 
stocks of gasoline, are at all-time low levels.
    Since you were there, General Casey, I am frustrated by 
what I have learned from the IG's report in terms of 
contracting processes at DOD. I am even more frustrated at the 
idea that we have spent $38 billion while the Iraqis are 
sitting with surpluses that they ``are unable to spend 
appropriately.''
    Can you give us a ground view of how we could have made 
this large a mistake in terms of the moneys that have been 
spent and ended up with the kind of failure we have had in 
terms of meaningful reconstruction?
    General Casey. I have not seen the report that you are 
mentioning here, Senator. The reconstruction effort has, no 
question, been challenging and we worked very hard with the 
Iraq Reconstruction Management Office, the ambassador, and our 
engineers to ensure that the money that was allocated for the 
reconstruction of Iraq was appropriately spent. That, as you 
suggest, has not always been the case.
    The other issue that you mentioned is a challenge, and that 
is the Iraqis' ability to spend their own money. It is a 
combination of poor or nonexistent contracting procedures and 
fear of corruption. The result has been that we have to do some 
fairly significant work with them, particularly on the security 
side, to get them, to help them, spend their money. The work 
that Lieutenant General Robert Dempsey has done getting a 
foreign military sales program going for them allows us to 
spend their money and it lessens some of the burden on that.
    When I got there there were less than 250 of the Iraq 
Reconstruction Fund projects started. We have now started over 
3,000 of the 3,400 projects as part of that. But I think 
probably about 75 percent of those things are done and the rest 
of them will be done here over time.
    It is a tough environment both in terms of contracting and 
in terms of getting the appropriate materials for the projects 
to be done and then to secure the sites.
    Senator McCaskill. Perhaps we are just getting all the bad 
news and we are not getting any of the good news on 
reconstruction. But I think it would be important for this 
committee to know your view of what successes there have been. 
I am frustrated that the person who is supposed to help Iraq 
spend their $10 billion they have made supposedly a commitment 
to spend under this new strategy, that that person was selected 
the day before the plan was announced by the State Department.
    It is a little unfair for me to be questioning you in this 
regard because I think the military has done an incredible job. 
But I keep hearing that it is the economic infrastructure and 
the political infrastructure that is going to make the 
difference in terms of long-term success in this country, and 
it appears to me that we are so focused on what we are doing 
militarily that we are--and I hate to be flippant, but from 
what I have read I am not sure we are the right people to 
advise the Iraqis on how to spend their money, if we spent $38 
billion and we cannot point to any success in terms of 
improvement of the infrastructure.
    I would like your input on that as you take your new 
position because we know there is going to be more money asked 
of the American people in this regard, and I think we need to 
be able to explain to them how that many billions of dollars 
could have been spent with some real horror stories, and how we 
can possibly chase that money with more money until we have 
more assurances that there is going to be meaningful progress 
made. I would really appreciate your input on that as you take 
this position.
    General Casey. Thank you, Senator. Your point that the 
progress on the economic and political fronts must accompany 
military and security progress is exactly right. They all must 
go forward together, as you point out.
    Senator McCaskill. The other area I wanted to ask you about 
briefly before my time expires is about recruitment. We have 
another incident that has occurred in St. Louis that I believe 
will be made public in the coming weeks, about inappropriate 
things being said by recruitment officers to potential recruits 
about the potential danger and other things. I know there has 
been some national stories in this regard.
    Could you address the pressures that the Army feels about 
recruitment and what you think you can do to make sure that 
there are not any abuses occurring in the recruitment process?
    General Casey. I am not aware of the specific incident that 
you are talking about. My sense is we are doing fairly well in 
all three components in recruiting. Everyone met their December 
objectives. The Army and the National Guard are ahead for the 
fiscal year in terms of recruiting and the Reserves are about 
90 percent of where they need to be for the year.
    Recruiting is always a tough challenge and there are always 
pressures there. You raise a good point. I am sure that the 
Army has quality control measures to ensure that those 
pressures do not cause people to overstep their bounds, as you 
suggest has happened in St. Louis.
    Senator McCaskill. I think you are going to see this around 
the country, unfortunately, General, or fortunately, depending 
on your perspective, that these news outlets are going to be 
sending hidden cameras in to record recruitment conversations, 
and when there are things said that are inappropriate, I think 
they are going to become very high profile.
    I support the President's call for a larger active military 
and I understand that is going to mean there is a great deal of 
recruitment pressure, hopefully, as far as the eye can see. I 
think as we face those pressures to increase the size of our 
military, I think it is really important that you get a handle 
on what is being said person to person in these recruitment 
appointments and make sure that there are not any young men or 
women that are being misled.
    Thank you very much.
    General Casey. Thank you.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Graham.
    Senator Graham. Thank you very much, Mr. Chairman.
    General, my compliments to you and your family for a very 
long career of distinguished service. But this is about a war 
that cannot be lost, and it is almost like I am hearing two 
different wars being described here. When you hear General 
Petraeus testify and Admiral Fallon, there is a general 
belief--let me just put it this way. General Petraeus said: 
``Senator Graham, this is not double down; this is all in.'' Do 
you agree with that?
    General Casey. It is not double down, it is all in?
    Senator Graham. All in. This new policy is all in. This is 
our last best chance to get this right.
    General Casey. I agree with that. As I described in my 
opening testimony, the Iraqis are in a position to assume 
responsibility for their security by the end of the year if we 
can get the sectarian situation in the capital under control.
    Senator Graham. The point I am trying to make has nothing 
to do with the Iraqis. To all of my colleagues who believe we 
cannot lose in Iraq, this is our last chance. The public is 
going to break against us big time.
    The Army is broken. You have asked for more troops to clean 
out Fallujah and Fallujah got reoccupied. There has never been 
a willingness on your part during your time as commander in 
Iraq to accept the idea that maybe General Eric Shinseki was 
right. Was General Shinseki right?
    General Casey. My boss, General Abizaid, has said he agrees 
with that, and he was there on the ground----
    Senator Graham. For 2\1/2\ years everybody that has come 
before us has fought the idea that General Shinseki was right. 
Everybody that has come before in the last 2\1/2\ years, 
including General Abizaid, says the Army is doing fine, and 
December 14, 2006, General Schoomaker went to the House and 
said the Army is broken.
    This is the last best chance and the question is, the last 
hand to be played, should you play it? Have you been fighting 
for the last 2\1/2\ years a counterinsurgency campaign in Iraq?
    General Casey. We have, Senator. In fact, in August 2004 
when we first came in, Ambassador John Negroponte and I----
    Senator Graham. Have you had the troop levels consistent 
with a counterinsurgency program as described by General 
Petraeus for the last 2\1/2\ years?
    General Casey. We have. It varies with the security 
situation around the country, and we have had the ratios that 
we needed when we needed them. Fallujah is a good example. I 
guess I question your----
    Senator Graham. Could I go to Fallujah tomorrow? Could I go 
downtown to Fallujah tomorrow as a Senator?
    General Casey. You could.
    Senator Graham. I asked to go and they would not let me.
    General Casey. I actually took Senator Robb down there. If 
you had asked me I would have----
    Senator Graham. I asked to go to Ramadi and they would not 
let me.
    General Casey. Ramadi is a little tougher, Senator.
    Senator Graham. The point I am trying to make is it is 
clear to me that we have never had the force levels to be 
claiming we have been fighting a counterinsurgency.
    What percentage of the population is contained in the four 
provinces that are out of control in Iraq?
    General Casey. I would not characterize the provinces as 
out of control in Iraq. Baghdad and Anbar are very difficult. 
Diyalah and Sal-a-Din are not out of control.
    Senator Graham. What percentage of the country would it be 
impossible for an American to walk down the street without 
being afraid of getting shot at or killed?
    General Casey. Probably, about half actually, Senator.
    Senator Graham. Well, here we are 2\1/2\ years later. Half 
the country, no American can walk down the street. We are 
talking about sending 21,500 more as our last best chance. I 
asked why 21,500. I have been told that is all we have, that if 
we wanted to send 50,000 we could not get them. Is that true?
    General Casey. I do not know that to be true, Senator. I 
have not heard that.
    Senator Graham. That is something we need to know from the 
Chief of Staff of the Army. I believe that is all we have. The 
reason we are not sending 31,500 is we just cannot get them.
    I share Senator Warner's view, I do not know if this is 
going to work or not. But I know now we are in a mess and this 
is the last best chance. The question I have is, the advice you 
have given--I mean, you are saying we need more troops because 
the Iraqis have changed their plan. I have never been told by 
an Iraqi prime ministerial official that they want 21,500 more 
troops. Have you?
    General Casey. No, I have not, Senator.
    Senator Graham. No further questions.
    Chairman Levin. Thank you, Senator Graham.
    Senator Bill Nelson.
    Senator Bill Nelson. Senator Graham, no one would say that 
General Shinseki was right because Secretary of Defense Donald 
Rumsfeld was not going to let them say that. You and I come to 
the same conclusion, that there is nothing magic about the 
21,000, it ought to be a lot more. I suspect what you have just 
said is correct, that we do not have the ability to produce a 
lot more.
    But the question for me is will this 21,000, 17,000 of 
which will go into Baghdad, will it do any good? I personally 
believe that the troops going into Anbar will do some good, and 
I was convinced by the Marine generals there that was the case.
    But it is a sad commentary, and I did not plan to say this, 
but you certainly laid the groundwork, that when we have a 
career 35-year general as the head of the Army and he gives an 
honest and straightforward answer to Senator Levin in front of 
this committee, to occupy how many troops and how long do you 
need, he said ``Several hundred thousand for several years.'' 
Of course, I think what is concerning Senator Graham is the 
fact over the last several years that nobody in the uniformed 
military would challenge the Secretary of Defense.
    General, you have my admiration for your career and as I 
look at your little family back there they have sacrificed, and 
yet it is an honor also for them in this public service that 
people give in the service to their country.
    I wanted to ask, since so much of the success of this plan 
is predicated on the fact that the Iraqi army is going to be 
reliable, I have asked and other Senators have asked all of the 
witnesses that have come here--Secretary Gates, General 
Petraeus, Admiral Fallon--is the Iraqi army reliable and how 
much? No one has given a straight answer and, as you and I 
talked in my office, I indicated that I was going to ask you 
that question.
    Would you share for us what you think about the 
reliability?
    General Casey. As I said yesterday, Senator, it is a mixed 
bag and there are good units that are fairly reliable and there 
are other units that are less reliable. About a couple of 
months ago I directed that we add a reliability index to the 
normal monthly readiness report. For some time now we have been 
doing a readiness report with the Iraqis on their units--the 
people, equipment, training, those standard things. What we 
were not getting was your point. We were not getting at the 
reliability.
    What we were finding is you could have all your people, you 
can have all your weapons, your vehicles can all work, but if 
we cannot depend on you it is a different problem. I have yet 
to get my first report back on that, Senator. But I think your 
point is exactly right.
    Senator Bill Nelson. Let me run this by you then. I have 
checked and I have it in writing that what I am about to state 
is unclassified. A senior officer on the Joint Staff with 
significant military experience has testified to the Senate 
that, of the 325,000 Iraqi army and police, that about 130,000 
are actually army trained and equipped, and of that 130,000 
half of them approximately are geographically located and half 
of them, or about 65,000, are nationally recruited and more 
reliable; and that of that 65,000, they are expecting, of the 
Iraqi army, 30,000 to be in Baghdad.
    That same senior officer, when I asked the question how 
many are reliable, gave an astoundingly high percentage of 80 
percent of that 30,000 in Baghdad.
    Your comments?
    General Casey. 80 percent in Baghdad reliable of those 
forces, that does not strike me as an unrealistically high 
number. Knowing the units that we have in Baghdad on the army 
side, that is probably about right.
    Just on the point on geographically located units versus 
nationally recruited, what we have, I think people know, that 5 
of the 10 Iraqi divisions are the former National Guard units 
that were recruited locally, and they are fairly reliable in 
their local areas. But what we have found, when we wanted to 
move them someplace else we have had challenges with them. The 
Iraqis have put in a deployability scheme where they work their 
way through this, and we have actually seen that that has made 
a difference.
    The other ones, the nationally recruited ones, as you say 
or as you suggest, they are more mobile, but I guess what I am 
going to say is it is not a reliability issue just because the 
one happens to be geographic and one happens not to be.
    Senator Bill Nelson. You can understand the concern that we 
have when we ask over and over on a plan that is predicated on 
the reliability of the Iraqi forces, putting more of our men 
and women in Baghdad in a combat situation, where in the 
doctrine of clear, hold, and build that you are going to clear 
with the Iraqi forces and it is going to be more Iraqi forces 
than American forces that will go in and clear an area. So 
naturally we as the Senate Armed Services Committee need to 
know what is the professional military's judgment of what is 
the reliability of those forces that are going in.
    Yet we cannot get anybody to give us a consistent or even 
an answer. Would you please do that when you have taken over 
the reins as Chief of Staff?
    General Casey. I will actually do it before that. I will 
give you some feedback from the reliability assessment that I 
have asked for from my units.
    Senator Bill Nelson. Twenty percent unreliable, if those 
statements by this senior officer are correct. Then report back 
to us, why is it that they are unreliable? Do they not show up? 
Are they criminals? Have they been infiltrated by the militia? 
Of course, that is a high number and would certainly undermine 
the mission of the Iraqi army in Baghdad.
    General Casey. I would not get fixed on 80 percent. I do 
not know where he got that number. I said it did not strike me 
as artificially high. The reasons you mentioned why people 
would be unreliable are exactly right, and if you add poor 
leadership to that you would have about the four or five things 
that make these units unreliable.
    The fact of the matter is, and one of the reasons we are 
partnering these coalition units with the Iraqi units, is they 
fight better when they are with us. We have demonstrated that 
time and time again. So we put a little steel in their spine 
when they are standing next to an American soldier or an 
American marine.
    Senator Bill Nelson. General, over and over this committee 
we have been told by the Secretary of Defense that he had 
hundreds of thousands that were trained and equipped Iraqi army 
that were reliable. That was incorrect information, and that 
leads us to this point. What we want is the truth and we will 
look forward to receiving that from you.
    [The information referred to follows:]

    The information requested was provided by General Casey on February 
16, 2007, in the attached letter.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    General Casey. Thank you.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Dole.
    Senator Dole. General Casey, let me also thank you and your 
family for your outstanding service to our country, and I look 
forward to our continued work together in the future.
    The Congressional Budget Office in its most recent long-
term assessment of the DOD budget estimates that the shortfall 
between anticipated funding levels and what is required is a 
minimum of an additional $52 billion per year across the Future 
Years Defense Program and well out into the future. My 
understanding of the fiscal year 2008 budget request at this 
point is that the top-line figure keeps pace with inflation, 
but there is no real growth.
    Given the cost of the war, the cost of reset, the cost of 
increasing active duty end strength, the cost of developing and 
procuring FCSs, it is apparent that there is an appreciable 
risk, measure of risk, in the budget. What areas of the Army 
budget give you the greatest reason for concern as we look out 
over the next few years?
    General Casey. I will rapidly expend my knowledge on this, 
so I will give you just a couple of thoughts, Senator. I think 
my greatest concern is our ability to equip, provide the 
soldiers that are deploying with the best equipment in time for 
their training, so that they can be successful in whatever 
combat mission they are going on.
    I think the second main concern I have is the reset, the 
recapitalization of the force as it comes back out of Iraq. We 
need to ensure that we have an appropriate level of funding so 
that we can fix what we have that is broken.
    Then, as Senator Inhofe was talking about earlier, we 
cannot take our eye off modernization and the FCSs. So I will 
balance the challenges of near-term readiness with long-term 
modernization over time. But those are the three things I think 
that come to mind.
    I will add one more and that is having enough money to 
ensure that we provide the soldiers and families of the Army 
who are going through this very difficult and stressful period 
with a quality of life befitting them.
    Senator Dole. I am a strong proponent of increasing the 
Active Duty Army's end strength. This increase is necessary to 
have the forces to respond to major regional threats, to meet 
critical homeland security, defense, and peacekeeping needs, 
and to accommodate the increasing number of long-term 
deployments connected with the war on terror.
    Every brigade in the North Carolina-based 82nd Airborne 
Division has deployed three times since the fall of 2001. In 
short, today's high operational tempo is driving home the point 
that end strength is too low. The next Army Chief of Staff will 
confront difficult budgetary pressures. Give me your assurance 
that you will not jettison the proposal to increase Army end 
strength in pursuit of funds to pay for other pressing needs.
    General Casey. I will certainly work to sustain the new end 
strength addition here. I guess never say never, Senator, but I 
agree with you that we need to increase that end strength and 
we need to build the forces that will come from that end 
strength for exactly the reasons that you suggest.
    Senator Dole. North Carolina is home to the Joint Special 
Operations Command, the Army Special Operations Command, and 
the new Marine Special Operations Command. I as much as anyone 
want our special forces to grow, but we need to grow the forces 
in a manner that does not sacrifice quality in pursuit of 
quantity. Would you share with us your thoughts regarding the 
expansion of the special operations community over the next 
several years and particularly the pace of that expansion?
    General Casey. I could not comment on the specifics of the 
plan, Senator. But I can tell you that working with the special 
forces in the past 2\1/2\ years in Iraq and watching the value 
that they bring to these types of counterinsurgency missions 
that we will be facing here in the 21st century, I am a big 
proponent of special forces myself.
    We have been working on this for a while and, again as you 
suggest, increasing the size of these forces without impacting 
their quality and the experience that they have is critical. 
But I could not tell you now what the specifics of the Army's 
plan are for growing the special forces.
    Senator Dole. Let me ask one other question. The United 
States has enormous resources and expertise in a number of non-
DOD departments and agencies that could be better utilized to 
help us achieve our national security objectives in Iraq, 
Afghanistan, and elsewhere. It is fair to say that today most, 
if not all, national security objectives pursued by the United 
States are fundamentally interagency in nature. Do you believe 
it is time for Congress to consider Goldwater-Nichols II type 
legislation to improve interagency coordination?
    General Casey. I think it is something that ought to be 
looked at. You are exactly right. I have watched this now in 
Bosnia, I have watched it in Kosovo, and I have watched it in 
Iraq, and it really is an area where we keep relearning the 
same lessons again. I think some type of program that would 
leverage the skills from across all of the interagency in a 
sustained way I think would be very helpful to us all.
    Every time we have done it we have said we will never do 
this again and so we forget the lessons, and then we do it 
again. I think your notion is exactly right.
    Senator Dole. Thank you, General Casey. Thank you, Mr. 
Chairman.
    Senator Reed [presiding]. General Casey, Senator Levin has 
indicated I am the next in order.
    First, let me thank you for your devoted service to the 
Army and the Nation and that of your family. We appreciate it 
and respect it. You are someone who has inspired a lot of 
soldiers with your dedication and I thank you for that.
    You assumed command in Iraq in 2005, is that correct?
    General Casey. July 1, 2004.
    Senator Reed. 2004, excuse me. At that time, I think you 
could properly say that you were assigned to manage some of the 
consequences of failure: insufficient forces--many of my 
colleagues have spoken about that--despite General Shinseki's 
prescient comments to this committee; a de-Baathification 
policy that alienated the Sunnis; an Abu Ghraib incident which 
further endangered our status in that region and in that 
country; emerging sectarian violence, which was already evident 
when you took command.
    I think the record should show that as you assumed this 
command there were significant and serious failures already 
with our approach and endeavor in Iraq. The policy and the 
strategy that I understood that you were pursuing based upon 
the President's comments was described as clear, hold, and 
build; is that an accurate description?
    General Casey. It is, Senator.
    Senator Reed. Let us try to take that apart. Clearing was 
done on numerous occasions by American forces, operating 
sometimes with Iraq security forces. But there has been 
criticism lately that the Iraqi security forces were incapable 
of holding terrain and we had insufficient forces to do that. 
Is that a valid criticism of the strategy?
    General Casey. Not necessarily. In Baghdad it is probably a 
valid criticism. The August Baghdad plan where we went in and 
cleared focus areas, as we called them, specific areas of 
Baghdad where the sectarian strife was the greatest, we went in 
and cleared those, established basically a perimeter around 
them, and then gradually backed ourselves out as the Iraqi 
security forces were more able to take charge.
    By and large, they did not prove capable of holding onto 
those areas without continued support from us.
    Senator Reed. Did you inform the Secretary of Defense and 
the President that aspect of the strategy was not working at 
that time?
    General Casey. I told them that the holding on the focus 
areas was not working. In fact, now that you are asking me 
about it, I recall specifically saying that we were having 
challenges with the reliability of the Iraqi security forces in 
the focus areas. So yes, I did.
    Senator Reed. Did they direct in any way or did you request 
an increase in forces, American forces? How were you preparing 
to compensate for this noted deficiency?
    General Casey. As we looked at the sectarian violence over 
time, we asked for more forces in the June time period as we 
saw a spike in the sectarian violence, and that is when the 
Stryker Brigade was extended and we basically put two more 
brigades into Baghdad.
    What we did not get when we put those forces in was the 
political commitment from the Iraqis to target anyone who is 
breaking the law, not to have any safe havens, not to have 
political influence on the security forces, the commitments 
that Maliki has since made and is delivering on. That was the 
difference, and I was reluctant throughout the fall to ask for 
additional forces when I knew I did not have the political 
commitment of the Iraqis to let us do our jobs.
    Senator Reed. What you seem to be saying, General, is that 
in terms of the decisive factor it is not the size of our 
forces there, but the political commitment of the Iraqi 
government, and that with adequate political commitment our 
forces are either adequate or do not require significant 
increase; is that fair?
    General Casey. I think that is a fair statement. In 
counterinsurgency operations, the political and the military 
have to go forward together.
    Senator Reed. Let me take on the third leg of this 
strategy, build. I would note, as you probably might be aware, 
that yesterday the SIGIR essentially examined the Iraqi 
government and said all the ministries are dysfunctional, with 
some exceptions. You are responsible for two of these 
ministries, interior and defense. My experience is that they 
are probably more capable than the others.
    But the other responsibilities are borne by the Department 
of State. Have you communicated at all to the President the 
inability of other government agencies to complement this 
policy?
    General Casey. We talk about that regularly. I think one of 
the things that has caused us problems is the fact that the 
government has changed three times in 2 years, and so we are on 
our third set of ministers right now and third set of 
ministries. So the growth of the ministries has not been 
straight line. As a matter of fact, it has been sporadic.
    Senator Reed. What I find puzzling is that if the strategy 
is clear, hold, and build and it has been evident, not only 
yesterday but ever since we have been there, that the Iraqi 
government is dysfunctional, our complementary agencies--Agency 
for International Development, Departments of State, Justice, 
Agriculture, and Treasury--have not provided the resources 
necessary, why did this not--and you communicated it to the 
President--why did this not cause a reevaluation of our 
strategy by the President and the Secretary of Defense?
    General Casey. I think what you are seeing in the 
President's----
    Senator Reed. We are seeing it after an election. We are 
not seeing it a year ago or 2 years ago, when in fact on the 
ground this was evident.
    General Casey. One of the other things I have seen with the 
three governments is it takes everybody about 6 months to get 
their legs under them and start governing. These folks are not 
experienced ministers. They have not served in government 
before. So it takes them a while to understand and develop 
their governing skills.
    Maliki's government did not take over until about May 20 
and he did not get his defense ministers until early June. Now 
we are talking maybe 8 months that he has been in charge. They 
make, what I have seen, in most of the ministries gradual 
progress. There are others that are just so corrupt they are 
not going to make any progress.
    Senator Reed. My time has expired, but I understand, and I 
think you feel the same way, is--and we say it repeatedly, but 
the question is do we mean it--that a military strategy alone 
without a functional Iraqi government and without the support 
of non-DOD agencies cannot effectively prevail in Iraq. Is that 
accurate?
    General Casey. That is accurate.
    Senator Reed. I have not seen a lot of commitment outside 
of DOD to succeeding in Iraq. This government is still 
dysfunctional and, as you point out, some of these problems are 
beyond the next 6 months or a year because it is corruption, it 
is political advantage, it is the existential struggle between 
Shia and Sunnis, that are not resolved by a consultant from 
McKinsey.
    I just wonder again--I do not wonder now, after this 
dialogue--but that clear, hold, and build never was a strategy 
that was working because we were not building, and this 
strategy of a surge I think is probably compromised by the same 
factors.
    General Casey. The clear, hold, and build has worked for us 
locally, in Fallujah for example. The build phase takes a long 
time because of the inefficiencies within the different 
ministries, but it has worked for us locally.
    Senator Reed. My time is up. One point if I may. I have 
traveled out, as you have, to Fallujah a number of times, and 
the times I have been there there has been one State Department 
officer out there trying to make this happen, a 36, 37-year-
old, brave, courageous State Department official.
    General Casey. Dale Weston.
    Senator Reed. Dale.
    General Casey. He is a fine young man, yes.
    Senator Reed. He has needed help for 2 or 3 years and it 
has not arrived.
    Thank you.
    General Casey. There is actually a Provincial 
Reconstruction Team (PRT) out in Anbar that is part of that 
effort.
    Chairman Levin [presiding]. Thank you, Senator Reed.
    Senator Thune.
    Senator Thune. General, let me echo what has been said 
repeatedly here and express my appreciation for your service to 
your country under extraordinarily difficult circumstances, and 
also to your family. I recall running into your wife at a 
function almost 2 years ago and at that time she was anxiously 
awaiting your arrival back here, and then it was extended. So I 
know there is a tremendous sacrifice on the part of your family 
as well, and we appreciate what your commitment and dedication 
to this country and its national security entails for your 
family as well.
    Chairman Levin. Senator Thune, I hate to interrupt you. The 
roll call vote has begun. I think you will have time to finish 
your questions.
    Senator Thune. Right.
    Chairman Levin. Are you going to be able to stay? If you 
could turn this then over to Senator Bayh after your time is 
up, and then I will be back by the time you are done. Thank you 
and sorry for the interruption.
    Senator Thune. Thank you.
    I agree with some of what my colleague from Rhode Island 
just said. I think a critical component in the clear, hold, and 
build strategy is the build part of it, and my impression is, 
having visited Iraq several times, that is a component that has 
been very deficient in terms of our strategy. I believe the 
same thing has been true to some degree in Afghanistan, having 
visited there.
    I have been over to Iraq several times. I have visited with 
you there in theater, as well as when you have been in front of 
this committee. One of the things that we often hear in front 
of this committee is about the Sunni and Shia extremists. I 
mentioned this to you in a private meeting, that it seems to me 
at least that a lot of times people forget when we talk about 
the duration of this fight how things have changed and how we 
have had to adapt to the changes on the ground.
    There was a lot of talk a little over a year ago about 
being able to transition out and start pulling our troops out, 
and then the Samarra mosque was bombed in February 2006 and 
everything changed. The paradigm changed entirely and the 
sectarian piece of this puzzle began to really rage and has 
ever since.
    I think oftentimes we forget that we would like to see 
progress. I think we were seeing some progress up to that 
point. But the scenario has changed entirely.
    There has been a lot of focus on Sunni and Shia extremists. 
Based on your last 2\1/2\ years in Iraq, is there a growing 
concern among the moderate population of Baghdad and Iraq, both 
Sunni and Shia, that time is not on their side and that it is 
in their best interest to secure the future before it descends 
further? Do you see a sense of urgency among the moderate 
elements in the country?
    General Casey. Senator, there is no question that the 
moderate elements would like to see the country move forward. 
But what we are seeing is--and Baghdad is a great example of 
this--you have the extremists on both sides attacking each 
other's populations, and that creates fear and intimidation 
among the moderates, that makes them unwilling to compromise 
until they see that they have some chance of surviving this.
    That is why it is so important now to bring security, to 
help the Iraqis bring security to Baghdad, so that we can get 
on with the rest of the progress.
    Senator Thune. You have probably spent more time with the 
prime minister than anybody else in the military, or DOD for 
that matter. What is your assessment of his reliability and do 
you believe that, despite these sectarian differences, he has 
the commitment level now to see this through?
    My impression at least in the last visit over there is that 
they are getting it, they understand that the clock is working 
against them, that public support in the States, that our 
willingness to continue to provide military support to their 
effort is on the wane. What is your sense about his level of 
commitment?
    General Casey. I think the prime minister is committed to 
bringing stability to Baghdad and to the rest of the country. 
As we agreed on the Baghdad security plan and agreed on the 
Iraqi commander for that, there was no question in my mind that 
he did not understand that this was the last best chance to 
succeed.
    So I put him in the very-committed-to-this column. As I 
mentioned earlier, he made a range of commitments in several 
speeches and he is delivering so far on those commitments.
    Senator Thune. So much of what this strategy, its success, 
depends upon his commitment as well as the commitment of the 
military there. It seems to me at least that they are stepping 
up. So far what we are seeing, I am encouraged by that, as you 
are as well. But the real focus, of course, is security in 
Baghdad and the willingness of the Iraqi military and the Iraqi 
political leadership to take on these militias and do what 
needs to be done to bring that kind of security.
    Do you think--and I know this question has been batted 
around a lot here this morning and for the past several weeks--
that with the force, the additional troop strength that we are 
bringing into Baghdad, that we can get this done? The question 
is could you use 30,000 or 50,000? I know you have had a lot of 
input in the formulation of this current plan.
    I guess I just want to hear you say that, your assessment 
of whether we can get it done with this number.
    General Casey. I believe we can, Senator. I believe that 
the commitment, the political commitment of the Iraqi 
government to the success of this plan, is probably more 
important right now than the additional troops. But I believe 
that with the troops that are in the pipeline this plan can 
work.
    Senator Thune. I am out of time Mr. Chairman, I have a 
question which I will submit for the record, and I know that 
Senator Bayh probably wants to get in here before the vote.
    I appreciate your answers. Our hopes and prayers are with 
our troops and our efforts, and with your leadership. The other 
challenge that we face is the Army transitions, both in 
doctrine and equipment, from a Cold War posture to a more 
lethal and agile force, which this current conflict has 
certainly shown a light on the need for. I will submit those 
for the record and I thank you again for your service.
    I yield back my time.
    General Casey. Thank you, Senator.
    Senator Bayh [presiding]. General, thank you for being here 
today. I am going to have to run to make this vote. I just have 
three quick questions. I will just move through them very 
rapidly.
    I think what you have heard here today is everyone 
expressed their admiration for you as an individual and for 
your family and for your family's service. The problem that we 
face, the dilemma in some of our minds, is that the policy in 
Iraq has gone terribly wrong and there needs to be some 
accountability for that, and who is responsible. That is the 
question that many are asking. Are you responsible or are 
others responsible for some of the mistakes that have been 
made?
    So my first question to you is, were you given everything 
by the civilian leadership that you requested to make this 
policy that you devised a success?
    General Casey. I was, Senator. All of the requests that I 
talked about earlier in my opening statement were filled by the 
Department. I would just like to say, you are exactly right. I 
am responsible for the military aspects of this campaign and to 
the extent that people have problems with the way that has been 
conducted I am the one who is responsible.
    Senator Bayh. Were you in a position of actually authoring 
the policy or implementing a policy derived in large part by 
others, specifically the Secretary of Defense?
    General Casey. We shaped the policy in Iraq and worked it 
up and presented it to the chain of command. The Secretary of 
Defense and the President discussed it and it was then given 
back to us.
    Senator Bayh. Was it altered in material part by the 
civilian leadership or did they adopt your policy pretty much 
as you presented it to them?
    General Casey. I would not say it was adopted pretty much 
as presented, but it was hard questions asked, adjustments 
made. I would not say it was rubber stamped, if that is where 
you are going.
    Senator Bayh. Well, but they did not put constraints upon 
your policy that prevented you from doing what you thought 
needed to be done? It was your policy?
    General Casey. It was in fact my strategy.
    Senator Bayh. Your strategy.
    General Casey. My strategy, better word.
    As I said to Senator Warner earlier, if I disagreed with 
that I would have done something completely different.
    Senator Bayh. I think Senator Warner asked questions about 
that.
    Here is part of the dilemma that we face as well, General. 
Many have felt that the civilian leadership has made some 
tragic errors in judgment. Under our system we cannot replace 
some of those civilians, particularly the Vice President and 
the President of the United States. So we have to ensure that 
those under the civilian leadership are competent, wise, and 
are willing to differ with the civilian leadership when that is 
in the best interests of the United States.
    So my final question to you, and then just one brief 
comment before I have to go, is can you give us an example of 
where you differed with the civilian leadership and were 
willing to speak out and say, look, this just is not right, you 
need to take a different course here? I know in the military 
chain of command it is a difficult thing because you have 
obligations to follow orders and that kind of thing. But I 
guess what I am looking for here is some sense of independence, 
of your willingness to speak your own mind and not just take 
direction from on high, given the fact that many of us have 
concluded that the civilian leadership has not pursued a very 
wise course here.
    General Casey. An example of, as you said, differing with 
civilian leadership was on the PRTs. General Abizaid and I felt 
very strongly that these things were necessary if we were going 
to build the capacity at the provincial level so that the 
provinces could succeed. Others in the Department disagreed 
with that and did not want to go forward with that. But General 
Abizaid and I continued to work through the Department and with 
the ambassador and the Department of State and we ultimately 
prevailed and gained the PRTs.
    I will say I was heard, Senator. I do not feel like I was 
constrained in any way from expressing my opinion, and I did. 
The strategy that I articulated here today is my strategy and I 
believe in it. It may not have produced the results on the 
timelines that people expected or wanted, but I do believe that 
it has laid the foundation for our ultimate success in Iraq. 
But it was mine.
    Senator Bayh. I appreciate your candor in that regard. It 
is not uncommon around this town that people try and deny 
responsibility or shift responsibility, so I appreciate your 
willingness to accept responsibility.
    My final comment has to do with something that Senator 
Clinton mentioned, and it is not a question so much as it is 
just an observation. One of the most shameless things that has 
happened in the course of this undertaking was that incident 
in--I cannot remember whether it was Kuwait or Baghdad; maybe 
it was Kuwait--involving the hillbilly armor, where the 
soldiers had to stand up and say, look, we have to find scrap 
metal to weld onto the side of our vehicles. So some of these 
reports that she alluded to and some others were, it looks like 
there may be a shortage of uparmored Humvees and other things.
    We just cannot allow this to happen again. I personally, 
since I have taken an interest in the Humvees, have asked the 
Pentagon over and over again, do we have enough, are we doing 
enough. Frankly, they were just dropping the ball on this. Now, 
it is understandable, although lamentable, maybe once. But it 
is not acceptable when it happens over and over and over again. 
So I really encourage you to get to the bottom of this.
    Then there is just one last observation. There is a report 
that says, ``Adding to the crunch, the U.S. Government has 
agreed to sell 600 uparmored Humvees to Iraq this year for its 
security forces. Such sales `better not be at the expense of 
the American soldier or marine,' Speakes''--you know who I am 
referring to--`` `told defense reporters recently.' ''
    Look, if there is a shortage our guys have to come first, 
right?
    General Casey. They do. They do. But the flip side of that 
coin is the Iraqi security forces are out there on the street 
fighting themselves.
    Senator Bayh. You have to be candid and aggressive in 
telling us what you need. Frankly, the Pentagon, for reasons 
that just mystify me, was saying they had enough when it was 
pretty clear they did not have enough. So let us know what is 
really necessary and we will provide it.
    General Casey. Thank you, Senator. I will.
    Senator Bayh. Thank you, General.
    Senator Warner [presiding]. Senator, you have about a 
minute to make the vote. I am going to miss it because I think 
staying here is more important than the vote.
    I listened carefully over the last few days about comments 
made by a number of colleagues with respect to the very serious 
questions that are facing us today. On a weekend talk show a 
colleague said the following: ``I say this is the last chance 
for the Iraqis to step up and do their part.'' This morning a 
colleague said this is the ``last best chance.''
    In the resolution that I put before the Senate I drew on 
the President's comments. This is paraphrasing what I believed 
he said and something I firmly believe and support the 
President in this conclusion. The resolution says ``The Senate 
believes a failed state in Iraq would present a threat to 
regional and world peace and the long-term security interests 
of the United States are best served by an Iraq that can 
sustain, govern, and defend itself and serve as an ally in the 
war against extremism.''
    I said clearly in here I support the President. I find 
those statements clash. I am hopeful that General Petraeus can 
carry forward with the plan. I think the plan could be modified 
to employ fewer than 21,500 troops and place greater emphasis 
on the Iraqis carrying the burden of elevating the security, 
improving it in Baghdad, that security being the consequence of 
ever-increasing sectarian violence. I have already made that 
speech.
    If that plan for some reason does not measure up to the 
goals of success, I have to believe that prudent military 
commanders such as yourself have a follow-on situation to 
support the President's goal as I enunciated. Can you advise 
the committee as to the state of that planning and to the 
extent you can such elements of such a plan that you can share 
without violating any classification?
    General Casey. The contingency planning that is going on 
now is for the employment of the last three brigades, and so 
the planners are actively looking at what happens if we do not 
get security in this district of Baghdad and so they are 
working through that right now.
    Senator Warner. Can you speak up a little louder?
    General Casey. They are working through those things right 
now at the tactical level.
    What I said earlier was that the political commitment of 
the Iraqis is more important here than the additional troops. 
So that has to come and it has to be sustained. So one of the 
things that I will be working with the ambassador on and I know 
he is already working on is to not only sustain the level of 
political commitment we have, but to move forward with 
reconciliation efforts so that we gradually bring the different 
ethnic and sectarian groups together and get on with building a 
representative government that respects all of their rights.
    Senator Warner. But do you agree with the President with 
regard to we have to have a measure of success, we cannot let 
this government fail?
    General Casey. I do. We definitely need to support this 
government.
    Senator Warner. Fine.
    General Casey. They have to bring something to the table as 
well, and they are doing that.
    Senator Warner. I understand the contingencies. I fully 
appreciate the importance of the Iraqi government living up to 
its commitments in benchmarks and in other ways. I do not 
question that. I draw on Senator Reed's point, and I brought 
this up in earlier hearings of this committee this past week. A 
chain is no stronger than its weakest link and you have three, 
I think really four--it is the political commitments of the 
Iraqi government to be fulfilled; it is the other departments 
and agencies of our Government that have to fulfill; it is the 
military plan; and it is the diplomatic plan.
    So it is all four links and really the failure of one could 
bring down the total. Would that not be correct?
    General Casey. I agree with that, Senator. All four of 
those things need to go forward together.
    Senator Warner. Then I come back. You can assure the 
committee that there is some fallback if this Baghdad surge 
concept in nine areas does not meet whatever goals that you as 
the commander have set, and that this would not be the last 
chance, this campaign in Baghdad?
    General Casey. I think that is a fair way to put it. I do 
not think it is the absolute last chance, but it certainly is 
the best chance right now that we have.
    Senator Warner. Then you and I are in concurrence that we 
cannot portray to our brave forces that have made these 
enormous sacrifices that in any way our will is going to waver 
to carry forward as best we can to achieve that measure of 
success that the President has set forth here.
    I come to another issue that has caused this Senator great 
concern. It has been my privilege to have had some long 
association with the U.S. military. My own career in uniform is 
very modest and of little consequence, but I have had the 
benefit of learning through these years of my association with 
the military. I am concerned about this concept of the dual 
command structure for, let us call it, the Baghdad plan as 
announced by the President.
    In his announcement he made reference to the Iraqis will 
have a commander, a senior commander, in each of the nine 
provinces, and presumably a commander above each of the nine 
Iraqi commanders; that the United States will likewise have a 
chain of command in each province. As I understand it you will 
have a battalion level force assigned with, working in support 
of, the Iraqi forces, which hopefully will be on the point, and 
they have their reporting chain of command.
    My concern is when you have this duality, dual concept, 
that you come down to the company level and the Iraqi company 
commander or platoon commander in all probability is saying 
that this mission we have before us, we have to maneuver to the 
left, the American platoon commander says, oh no, my 
calculations, we have to maneuver to the right. If whichever 
they follow does not succeed then you precipitate a finger-
pointing right down at the tactical level between two 
commanders who exercised their best judgment.
    Is that a potential that could occur under this plan and 
what assurances do we have that that will not happen?
    General Casey. Senator, if you put two military guys in a 
room they are going to disagree on tactics. So I do not think 
there is any question that, what you are describing could 
happen.
    But let me take you back to the beginning on this thing. 
There is a parallel chain of command and, as you know better 
than anyone, U.S. forces operate under U.S. command and that 
will happen. Now, the command structure for the Iraqis is a 
significant improvement over what we have been working on with 
them in the past iterations of the Baghdad security plan. It 
finally gets unity of effort of the Iraqi army and the Iraqi 
police and the national police under a single commander.
    The way they have set it up is there is a Baghdad 
commander, there are two commanders, one for each side of the 
river, and then there are nine district commanders. In that 
district, each district, will be an Iraqi brigadier. All of the 
Iraqi security forces, the local police, the national police, 
and army, will report to that one commander. That is a big 
difference.
    It is not a natural thing, I think, for police and the 
military to work together. There has always been friction in 
that with the Iraqis. This is a great step forward. I have been 
working for some months here and I have told my subordinate 
commanders, I want to be able to put my finger on a map of 
Baghdad and I want you to be able to tell me who, what Iraqi, 
is responsible for security in that area. We can do that now 
and that is important.
    Now, your concerns are correct ones. They come from the, 
okay, how do the Americans and the Iraqis work together. At 
each level from General Ray Odierno, the Baghdad commander, to 
General Fill with the two district commanders, to the brigade 
commander and the battalion commander in each of the districts, 
they are partnered at every level and they work very closely 
together. We still have our transition teams working with these 
Iraqis.
    Senator Warner. The embedded, the embedded.
    General Casey. I am sorry, the embedded.
    Senator Warner. Correct.
    General Casey. So they are linked and have close liaison at 
every level. I just talked to General Odierno this morning. He 
was out visiting with each of his commanders and they are 
comfortable with the arrangements that are being worked out.
    Senator Warner. Heretofore we have had a unified command of 
the American structure and you are assuring me that has not 
been changed?
    General Casey. No, it absolutely has not changed.
    Senator Warner. The American GI is accountable for the 
orders he gets from the American chain of command right up to 
your successor; is that correct?
    General Casey. That is correct, Senator.
    Senator Warner. Now, therefore that has been the way we 
have operated in Iraq and more or less we have devised the plan 
by which the joint operations to the extent we have had them 
with the Iraqi forces have been carried out.
    General Casey. That started to change in September as we 
gradually returned Iraqi forces from my operational control to 
Iraqi operational control. In September, you may recall we 
stood up the ground force command, that headquarters is now 
directing Iraqi operations.
    Senator Warner. In our meeting in my office here a day or 
so ago, I urged that you look at the testimony of General 
Keane, former Vice Chief of the United States Army, now 
retired, a very valued and knowledgeable individual. He had 
concern with this plan. Did you read that testimony?
    General Casey. I did.
    Senator Warner. You read the colloquy that I had with him?
    General Casey. Yes.
    Senator Warner. He concluded that he is going to urge 
General Petraeus once he takes over to get this thing 
straightened out. Now, can you translate for us what that means 
and what you hope to achieve, because I also asked General 
Keane, did he know of any precedent where our forces operating 
with others have had the type of command structure that this 
new strategy plan of the President as announced on the 10th 
envisions. He said he did not know of a precedent.
    General Casey. My sense is--and I probably need to talk to 
Jack, but my sense was from reading that is Jack did not have 
all the details of how this was going to actually be 
implemented. It is a non-standard arrangement.
    Senator Warner. You are breaking new ground.
    General Casey. We have been. Actually, we have been 
operating in smaller operations like this around Iraq for some 
time. As we are transitioning to Iraqi security force lead, 
there are non-standard arrangements as we go through the 
transition period, and that is really kind of what is happening 
now.
    Senator Warner. Is there not an element of risk now that is 
somewhat greater for our forces operating with the Iraqis? 
Unfortunately, we continue to get more factual evidence that 
the Iraqi forces, some components are not ready to do certain 
things. Yet we are going forward in reliance on their 
professional capability. I am just wondering, does this chain 
of command increase in any way the risk of the American GI 
participating in these operations?
    General Casey. I do not think so. As I said, General 
Odierno was out. He has visited all the brigade commanders in 
Baghdad and had the conversation with them, and he reported to 
me this morning that he is comfortable with this arrangement.
    Now, is it as good as having everybody lined up and working 
for us? No. There will be more friction than that. But I do not 
think that it significantly increases the risk to our forces.
    Senator Warner. My time is up. Colleague, why do you not 
just take charge?
    Senator Cornyn [presiding]. General Casey, thank you very 
much----
    General Casey. If we all leave before they come back, I 
will buy you both coffee. [Laughter.]
    Senator Cornyn. I appreciate your patience, but more than 
that I appreciate your service to our country. As I told you in 
my office, as a military brat myself I understand the impact of 
the service by the uniformed member on families, and I 
appreciate your family being here with you today and the 
support they have given you in allowing you to perform so well 
in the service of your country.
    I want to ask you about the Iraqis. One of the earliest 
signs we will see if the Iraqis are living up to their 
commitment is whether they are providing additional forces as 
promised. What has been the experience? Have they followed 
through on their promises or have they been lacking in follow-
through?
    General Casey. They are in the process of following through 
on those promises. They are actually pretty close to being on 
schedule, pretty close to being on schedule with the deployment 
of the brigades to Baghdad. I think we are now, with two of the 
three brigade headquarters and four of the seven battalions 
have moved to Baghdad.
    Now, they are coming in with the range of 55 to 65 percent 
strength because of people they left back. We are working with 
them to increase the strength of the forces that they have in 
Baghdad. But they are delivering so far on what they said they 
would do.
    Chairman Levin [presiding]. Senator Cornyn, forgive the 
interruption, but I understand there is a second vote on now, 
if I am correct. Is that correct? I would ask you, when you are 
done would you recess, because we will come back into session. 
There are more questions to be asked.
    Senator Cornyn. Certainly.
    Chairman Levin. Thank you.
    Senator Cornyn. Thank you, Mr. Chairman.
    I believe you said earlier when it came to the prime 
minister's commitment to take on lawbreakers without regard to 
ethnicity or religious affiliation that for the last 2 months 
at least you have seen a commitment by the Iraqi government to 
take on all lawbreakers and those who are exacting violence 
against the population. Did I hear that correctly?
    General Casey. You heard that correctly, Senator.
    Senator Cornyn. I read with some interest an article in 
this morning's Washington Post. It was excerpted from your 
written comments, but the headline of it said ``General: Shiite 
Militia Leaders Leaving Baghdad Strongholds.'' From what this 
article suggests--and I would like for you to confirm it or 
explain it--it is the threat even of our building our forces 
and not only clearing but actually holding areas that are 
currently occupied by militias and others seeking to generate 
chaos there, it is even the threat of force is causing the 
Shiite militias to actually leave some of these areas, and it 
is having an impact.
    Could you explain how that is possible or what your 
understanding is?
    General Casey. This is a phenomenon that we saw in August 
as well. Just the announcement of the extension of the Stryker 
Brigade had a dampening effect on the levels of sectarian 
violence. The same thing is happening again. Actually, it has 
been a combination of things this time. As we have announced 
the deployment of the additional troops, we have seen, as I 
said, in about 5 or 6 weeks a downward trend in ethnosectarian 
incidents.
    The other thing that has been happening, though, is we have 
been putting strong military pressure on the death squads and 
the death squads' leadership, and we have in fact picked up 
five or six of their key leaders here in the last several 
weeks. So that has had a big impact on them.
    The newspaper I think is reporting on reports from us that 
we are actually seeing some of these senior leaders move out of 
Sadr City and into safer places. That is good news, bad news. 
We will continue to target them wherever they might go within 
Iraq.
    Senator Cornyn. The bad news portion would be if they would 
simply lay low somewhere else and then come back once perhaps 
the forces were not deployed there to hold the area and come 
back and do the same old thing again?
    General Casey. Right. That has been one of the challenges 
with the militia. They blend away. They do not stand and fight. 
They see us coming, they just blend into the background.
    Senator Cornyn. General Casey, I do not want to embroil you 
in the political debates here in Congress and I promise you I 
will not do that. But I will ask your professional military 
judgment if in fact in this test of wills, as General Petraeus 
has called it, the enemy sees us lacking in will or believes we 
will not follow through on our commitments to not only clear 
areas in Baghdad but hold them, to allow the building to go 
forward, what sort of consequences, practical consequences, 
does that have to a commander on the ground?
    General Casey. If the enemy sees that we are not following 
through on our commitments?
    Senator Cornyn. If the enemy believes that, notwithstanding 
our statements, that we ultimately, that Washington, that the 
political leadership, says we do not believe we can win, so we 
are not going to follow through, what kind of consequences does 
that have as a practical matter on the ground?
    General Casey. It certainly strengthens the enemy and with 
the particular enemy that we are dealing with, I think they 
would use it with their information campaigns as a recruiting 
tool. I have already seen it starting to come out, that the 
Americans are beaten, they are defeated, come to Iraq now if 
you want to be involved in beating the Americans.
    Senator Cornyn. You have seen that, used that for their own 
propaganda pieces?
    General Casey. I have seen it in the al Qaeda propaganda.
    Senator Cornyn. Some have suggested that we continue to 
fight the insurgency in al Anbar, but not send reinforcements 
to deal with the Shia militias in Baghdad. What would be your 
military assessment of the impact of such a plan?
    General Casey. As I have said throughout the course of the 
hearing today, Senator, we have to help the Iraqis secure 
Baghdad if the country is going to go forward and if they are 
going to credibly assume responsibility for their security this 
year. We have to lower the levels of sectarian violence in 
their capital. We have to help them do that. So that is, in my 
view, a much higher priority than what is going on in Anbar.
    Now, Anbar is important because al Qaeda is trying to 
establish a safe haven there from which they can export terror, 
and we have enough forces to keep the pressure on both in 
Baghdad and in Anbar.
    Senator Cornyn. If we fail to send additional 
reinforcements to deal with the Shia militia and the ethnic 
violence, is it your military judgment that our chances of 
success would be markedly diminished?
    General Casey. Absolutely. In Baghdad it is not just Shia 
militia. It is both Sunni and Shia extremists, and we have to 
deal with both and we need the forces in both Baghdad and 
Anbar.
    Senator Cornyn. Let me ask you just a last question, about 
the consequences of our leaving Iraq before the Iraqis are able 
to sustain, govern, and defend themselves. Some have suggested 
that regional conflict would almost surely ensue, with Iranian 
Shia taking advantage of the opportunity to support the Shia in 
Iraq to the detriment of the Sunnis, perhaps engage in even 
greater ethnic cleansing against the Sunnis, perhaps then 
precipitating an entry by the Saudis and other Sunni-majority 
countries to come in and protect the Sunnis.
    That is one of the suggestions that I have heard. The other 
is that Iraq could well become another failed state and thus a 
platform for terrorist organizations like al Qaeda to train, 
recruit, and launch future terrorist attacks.
    In your view are either one or both of those plausible 
outcomes if in fact we leave Iraq before it is able to sustain, 
govern, and defend itself?
    General Casey. I think both are entirely plausible.
    Senator Cornyn. Thank you very much.
    Senator Collins [presiding]. Thank you.
    General Casey, first let me explain that I ran into 
Chairman Levin, who told me to go ahead and proceed with my 
questions. So for the next 10 minutes I get to be chairman of 
the Senate Armed Services Committee, a position I have always 
coveted. [Laughter.]
    General Casey. I will make you the same offer I made 
Senator Cornyn. If we both leave now before they come back, I 
will buy you coffee. [Laughter.]
    Senator Collins. No such luck. [Laughter.]
    Let me, however, start with my very sincere appreciation 
for your dedicated service to your country and to the United 
States Army.
    I want to bring up three issues with you today. The first 
is the impact of the war in Iraq and Afghanistan on our 
National Guard and reservists. Just last week former Secretary 
of Defense William Perry testified before this committee that 
the agreement with our citizen-soldiers had been shattered. 
Similarly, the adjutant general of the Maine National Guard has 
expressed to me grave concern about the impact of the recent 
change in policy that says that National Guard forces may now 
be involuntarily mobilized more often than once every 5 years. 
He has stated that if the 24-month, total month policy changes 
and Maine National Guard troops are involuntarily called up for 
a second time or in a few cases a third time in support of 
operations in Iraq and Afghanistan, that the Maine National 
Guard will not be able to sustain its current force structure, 
and he is very worried about the impact on recruitment and 
retention.
    General Casey, I have had two members of my own staff 
called up, so I know personally the impact this has on 
employers, on families, and on the citizen-soldiers themselves.
    Are we not asking too much of our National Guard? That is 
my first question to you, and a related question: Are you 
concerned about the long-term impact on retention and 
recruitment of our National Guard members that this policy will 
have?
    General Casey. It is certainly something that warrants all 
of our attention, Senator. I would agree with you on that. The 
numbers on recruiting and retention for the Guard seem to be 
right now okay, but we certainly keep our eyes on the impacts 
of this change in policy.
    As I mentioned in my opening testimony, one of the three 
things I would make a priority as the Chief of Staff of the 
Army is the Guard and Reserve. I know the Army is working on 
it, but as the Vice Chief we were working on building a system 
that would get the Guard units more predictability in what they 
were doing and to leverage the fact that almost half of them 
now are going to be combat veterans and they do not need to 
have 90 to 120 of post-mobilization training. We have to be 
smarter about how we treat them and how we use them so that 
when we do have to call them up, we have maximum time on 
mission and minimum time on preparation, so there is less time 
away from their families.
    Lots to do here, and I very much agree with your base point 
that we need to watch the impact of this policy change here on 
recruiting and retention.
    Senator Collins. Should we also be looking at improving the 
benefits for National Guard and reservists? For example, I am 
thinking of the educational benefits under the Montgomery GI 
Bill. Should we try to more thoroughly align the benefits for 
Guard members to make them more parallel with Active Duty, 
given the increased demands that we are making on them?
    General Casey. I definitely think that is something to be 
looked at, but I think you know the resource tradeoffs of 
those. But I think that is exactly right. Benefits as 
incentives to continued service in the Guard, I think that 
needs to be looked at.
    Senator Collins. General, the second issue that I want to 
bring up to you is one that we discussed in my office 
yesterday. That is my tremendous concern about reports that we 
will be sending troops into Iraq without adequate protection 
and equipment. I want to follow up on the line of questioning 
that some of our members have already raised with you.
    It actually was not a report by the Special Inspector 
General on current troops' equipment. It was the unclassified 
executive summary of an audit done by DOD's own IG. It is dated 
January 25 of this year, so it is a very new report. It is 
titled ``Equipment Status of Deployed Forces Within U.S. 
Central Command.''
    The findings of this audit trouble me greatly. The IG 
performed the audit to determine whether units deployed to Iraq 
and Afghanistan were equipped in accordance with mission 
requirements. The IG's office received responses from 
approximately 1,100 servicemembers, so this was a significant 
sample, and its report states that these individuals, 
``experienced shortages of force protection equipment such as 
up-armored vehicles, electronic countermeasure devices, crew-
served weapons, and communications equipment.'' As a result, 
servicemembers were not always equipped to effectively complete 
their missions.
    This troubles me terribly. I think it is simply wrong for 
us to send troops into harm's way without fully equipping them, 
without giving them uparmored vehicles. I understand why in the 
early days of the war this was a problem and many of us worked 
very hard to increase funding for up-armored Humvees, for 
example. But I do not understand why this is still a problem, 
according to the DOD IG, and I am extremely concerned that if 
it is a problem for some troops serving now that we are not 
prepared to fully equip the troops that will soon be on their 
way.
    General Casey. I agree with you, Senator. I have not seen 
the report, but I am concerned about what you just read to me. 
When I get back tomorrow I will take a hard look at that and 
find out what the heck is going on, because I have not heard in 
my visits to the units complaints about equipment shortages, in 
fact quite the contrary. So it needs some looking into.
    Senator Collins. It does. You and I discussed the equipment 
for troops on their way to Iraq or who will soon be on their 
way to Iraq, and I was pleased for your assurances that this is 
a high priority for you and that you have already in fact 
issued a directive to ensure that the troops do not go if they 
are not equipped.
    But here is a report from DOD's own IG that says that 
current troops do not have what they need. So I would ask you 
to look at this report and to report back to the committee on 
your findings, because this really is troubling. It is such an 
obligation.
    General Casey. I have a long airplane ride.
    Senator Collins. So you have plenty of time to look into 
it.
    [The information referred to follows:]

    The information requested was provided by General Casey on February 
16, 2007, in the attached letter.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Collins. Finally, General, you have said many times 
that you do not want to send one more American soldier to Iraq 
than is necessary to perform the mission. You have also very 
candidly testified that when you looked at the Baghdad security 
plan you asked for two brigades and that is what you felt was 
adequate. You have also, however, said today that you support 
the President's plan for five brigades. Does that not violate 
your principle, based on your earlier assessment that only two 
brigades are needed, that you should not send one more American 
soldier to Iraq than is necessary?
    General Casey. Not really, because, as I said, in my mind 
the other three brigades should be called forward after an 
assessment has been made of the situation on the ground and 
whether or not there has been success in the mission in the 
Baghdad area. So it is one thing to say all five brigades are 
going into Baghdad. It is another to say you have two, we have 
a decision point here for the third; we will assess to see what 
is going on, if we need it we will bring it in, if not we will 
not. The same thing for the fourth, the same thing for the 
fifth.
    So I think the way the force flow is arranged gives the new 
commander lots of flexibility to either use the forces based on 
his assessment of the need or not use the forces.
    Senator Collins. I understand your deferring to the new 
commander, to General Petraeus's view. But I need to ask you 
outright, if you were still in Iraq would you be happy with 
just two brigades?
    General Casey. I would still want a reserve that I could 
call forward if things did not work out the way we had hoped or 
to take advantage of an opportunity that presented itself.
    Senator Collins. But you would start out with two brigades? 
That assessment has not changed?
    General Casey. That is where we are, that is right.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin [presiding]. Thank you.
    Senator Warner had to cut short his questions because of 
the vote, so I am going to call on Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. Mr. Chairman, I 
have received information that the National Intelligence 
Estimate (NIE), which was in some large part generated by 
members of this committee, will soon be released in a 
classified form and made available to the committee. For those 
following the hearings, that is the evaluation of a subject by 
our entire Intelligence Community. This particular one is to be 
focused on Iraq.
    General, were you asked to make a contribution to that NIE? 
I am just going to talk process.
    General Casey. I have seen the executive summary and 
offered comments.
    Senator Warner. That is fine. All I want to know is that 
you were a part of the process and you had an opportunity to 
get your evaluation in before it went into final print, I 
presume?
    General Casey. I did.
    Senator Warner. Thank you very much, because that is an 
important document. I suggest, Mr. Chairman, that it be put in 
S-407 of the Capitol where traditionally we--or whereever--and 
we urge members to read that, because in the context of this 
very important broad issue before the Senate today and 
certainly into the next week, I think it would be valuable to 
get the assessment of the Intelligence Community about their 
own evaluation of the situation in Iraq today and most 
particularly Baghdad.
    Now, General, the Congress of the United States over many 
years has funded the National War College, the Navy War 
College, and Carlisle Barracks. We also have this new command 
now that studies the overall operations of our forces, that is 
located down in Virginia, the one that Admiral Edmund 
Giambastiani put together.
    Do you have any knowledge of the traditional practice of 
wargaming plans having been done in those various forums, 
wargaming being, for those that are following the hearing, 
where you establish an A team, a B team, or a blue team, a red 
team, and they try to assess the likelihood of success of the 
plan or what modifications should be made to the plan? In other 
words, it is a professional good exchange. It is very important 
we do it in many situations.
    Do you have knowledge of it having been done in the 
preparation of this plan as enunciated by the President on 10 
January?
    General Casey. I do not have any knowledge one way or the 
other, Senator.
    Senator Warner. All right. I have to tell you, there is 
testimony in the record by other witnesses before this 
committee that teams were sent to your AOR for the purposes of 
conducting such an evaluation. I accept your answer you do not 
have knowledge, which means you certainly did not see any work 
product. But I would ask that the record be left open so that 
you can go back into your command and see what, if any, type of 
wargaming might have been done.
    General Casey. Oh, I thought you were speaking of war 
colleges and Joint Forces Command.
    Senator Warner. In other words, Congress funds a whole 
number of military institutions for the purpose of doing 
wargaming, to make assessments of the likelihood of success of 
a plan or how a plan should be modified.
    General Casey. We routinely do it in our planning process. 
I would be surprised if that was not done in Iraq.
    Senator Warner. Well then, was it done within your command? 
Did you have a sort of a structure that looked at the plan as 
it was unfolding and presumably just before the President 
announced it to determine on a professional basis between young 
men and women officers looking at it and giving their best 
judgment as to the strength of the plan, the likelihood of 
success, or the likelihood it would not succeed unless certain 
corrections are made?
    General Casey. The actual wargaming of the Baghdad plan 
would have been done at the corps level. You are asking me 
whether we wargamed the overall strategy. No, we did not.
    Senator Warner. All right. So it would have to be done up 
at corps level and that would be General Abizaid?
    General Casey. General Odierno.
    Senator Warner. Odierno.
    General Casey. It is a tactical level plan.
    Senator Warner. He is a subordinate commander to you, is 
he?
    General Casey. Right.
    Senator Warner. So you do not know whether he did it and 
what the results?
    General Casey. I cannot tell you conclusively he did it. I 
tell you that we do wargaming as part of all of our planning. I 
would be surprised if some level of wargaming was not done, but 
I cannot tell you conclusively that it was.
    Senator Warner. All right. Could you then supply that for 
the record?
    General Casey. I will.
    [The information referred to follows:]

    During my testimony before the Senate Armed Services Committee on 1 
February 2007 you asked if we had done any wargaming as part of the 
formal planning process used to develop the current Baghdad security 
plan. I replied that during operational planning we routinely conduct 
such wargaming and that I would confirm for you that we had.
    The Multi-National Corp-Iraq conducted a detailed wargame from 22-
24 December 2006 to examine several courses of action. They followed 
that up on 24 December with a course of action brief to the commander 
that included the results of the wargaming. The commander used the 
results of that wargaming as he developed his operations order.
    On behalf of all our servicemembers and coalition partners, thank 
you and the committee for your continued steadfast support to our 
mission in Iraq.

    Senator Warner. In September 2006--and Chairman Levin, it 
was just before you and I made that trip together in the region 
in October, and we visited the Marines, you will recall. While 
it was classified, I think I can make reference to in September 
2006 the Washington Post reported that ``The chief of 
intelligence of the Marine Corps in Iraq filed a report 
concluding that the prospects for securing Anbar Province are 
dim.''
    That report was classified, so I will not ask you to 
comment on it. But we actually had the opportunity to have a 
colloquy with that colonel and his commanding officer and 
others. I then asked questions about al Anbar.
    What is the state today of the power of the al Qaeda 
elements of this insurgency? Is it growing? Is it 
strengthening? Do we have sufficient forces in your judgment to 
repress that organization?
    General Casey. I would say that the strength of al Qaeda in 
Anbar Province is diminishing. I talked to General Zumer, the 
commander in Anbar, right before I left. He told me that for 
the first time since the war there are Iraqi police in every 
district in Anbar Province. That is a big step. They have had 
very good success recruiting police. They have trained over 
9,000 police, on their way to about 14,000 police.
    So that is a big success. The real major success has come 
on the political level with a group of tribal leaders who 
banded together and started to take on al Qaeda on their own, 
and then, with the assistance of Prime Minister Maliki, they 
were able to merge some of these leaders into the provincial 
council run by the governor. So when this report, the 
intelligence report you spoke of, there was not a political 
track in Anbar. There is now. There were not many police in 
Anbar. There are now.
    Senator Warner. But as a part of your plan, that is the 
January 10 plan which you worked on, you do recommend 
additional forces in al Anbar?
    General Casey. I did.
    Senator Warner. Was that for the purpose of further 
diminishing the influence of al Qaeda?
    General Casey. Absolutely, it was to maintain the momentum 
that they already had. I actually went out there in October. I 
was getting a briefing from the commander in Ramadi and he was 
describing what was happening. I said: ``It looks like you have 
an opportunity here; what could you do with another 
battalion?'' He said: ``I could clean out Ramadi.'' So we asked 
for the Marine Expeditionary Unit and brought it in in 
November, and he has used that. These other units now are to 
backfill that Marine Expeditionary Unit so that we maintain 
pressure on these guys throughout Anbar Province.
    Senator Warner. My final question. You in the earlier 
responses described really the enormity of your task as the 
Multi-National Commander. Among it was dealing with, I think 
you said, three successive prime ministers; is that correct?
    General Casey. It is, Senator.
    Senator Warner. We have an ambassador there. I am trying to 
determine the degree of responsibility that you have with 
respect to the political side. Remember we said this new plan 
has four components. One of them is dealing with the Iraqi 
government.
    Is under the new plan there to be more State Department 
officials, more emphasis put on the ambassadorial role to deal 
with that? Or is your successor to continue to have to find 
time apart from his military responsibilities to handle much of 
the intergovernmental relationships?
    General Casey. Ambassador Zol Kollazaid handles the 
political business with the prime minister. What I work with 
him is the political-military aspects: what type of commitments 
do I need from the prime minister to support the military plan? 
What do I need from the government in terms of economic support 
for the plan? Those are the types of interactions that I have. 
I do not get involved in the strictly political stuff. Zol 
takes care of that.
    Senator Warner. So if, for example, in the forthcoming 
Baghdad surge campaign, the Iraqis fail to keep their 
commitments, benchmarks as we call them, and the most specific 
one and the one which I have included in my resolution, and you 
have alluded to it today, it is that commitment that no longer 
will the political structure of the prime minister and his 
subordinates be reaching out and telling tactical commanders, 
this is what you will have to do, and then calling up and 
saying, what you have already done on your own initiative, undo 
it and pull back.
    Whose responsibility will it be to make sure and certain 
that the Iraqis are living up to that and other benchmarks? Is 
it the United States ambassador, now filled by another 
individual, a very able person--I have dealt with him through 
the years--and his team, or is it back on the commanding 
officer of the MNF-I, your successor?
    General Casey. I would look after the military aspects. For 
example, if we had a call to a unit to undo something that was 
done, I would get that report back up to my chain and Zol and I 
would go see the prime minister.
    Senator Warner. He is now to be succeeded by another 
individual?
    General Casey. Right.
    So basically, Senator, I would deal with the military 
commitments, and I have a system already set up for monitoring 
those. Zol would deal with the political commitments.
    Senator Warner. Then if that fails it is part of your 
responsibility and the failure of those commitments by the 
Iraqi political structure then would fall in other words, the 
buck stops on your desk and not the State Department?
    General Casey. For example, if they did not deliver on a 
commitment to pass the electoral law or to pass the oil law, 
that is Zol's business.
    Senator Warner. Correct.
    General Casey. If they are not delivering on their 
commitment not to allow safe havens and are restricting our 
operations in an area, that is on me. So we work it together.
    Senator Warner. Now, that last phrase is important, you 
``work it together.'' So you are really working in partnership 
with the U.S. ambassador?
    General Casey. Oh, absolutely.
    Senator Warner. I see. I would think that primary 
responsibility for the enforcement of those benchmarks should 
be primarily with the Secretary of State and her ambassadors. I 
think you should think through and have some clarification.
    General Casey. The benchmarks absolutely fall under Zol's 
purview. Again, it is the military-related commitments that I 
keep an eye on.
    Senator Warner. There I think you would be in the role of 
an expert adviser to the United States ambassador, rather than 
one that----
    General Casey. What happens is we go over together.
    Senator Warner. All right. All I am saying is there could 
be a subsequent assessment of what went right and what went 
wrong here, and I think that having again unified commands with 
various responsibilities, whether it is on the diplomatic side 
or it is on the military side, would be beneficial.
    I thank the chair.
    Chairman Levin. Thank you very much, Senator Warner.
    General, the Iraqis have agreed to benchmarks before, is 
that not correct?
    General Casey. They did.
    Chairman Levin. Did they not agree in October to 
benchmarks?
    General Casey. September-October, I think you are right.
    Chairman Levin. Did they live up to those benchmarks?
    General Casey. Not in all cases.
    Chairman Levin. How about in most cases?
    General Casey. They did, they made progress on some things.
    Chairman Levin. Did they deny that they had agreed to 
benchmarks? Let me read----
    General Casey. I think there was some discussion by the 
prime minister that he----
    Chairman Levin. Some discussion? He flat out--according to 
the Washington Post on October 25, ``Maliki lashed out today at 
the United States, saying his popularly elected government 
would not bend to U.S.-imposed benchmarks,'' and denied that he 
had agreed to the benchmarks. Were you aware of that?
    General Casey. I am aware of that----
    Chairman Levin. No, but is it true that he denied that he 
agreed to them?
    General Casey. It is.
    Chairman Levin. Does that not make you nervous, when he did 
agree to them and then a day later or 2 days later denies that 
he agreed to them?
    General Casey. I do not know that he did agree with them. 
Other members of the presidency council--they have this policy 
council for national security and that was the group that it 
was discussed with. I do not know whether the prime minister 
was actually there or not.
    Chairman Levin. I see. So when Khalilzad said ``Iraqi 
leaders have agreed to a time line for making the hard 
decisions needed to resolve these issues''--that is his quote--
you are not sure that Maliki was involved among the Iraqi 
leaders that had agreed?
    General Casey. I am not, but Zol would know that.
    Chairman Levin. All right, so you are not sure that Maliki 
ever agreed to the ones that everybody else says he agreed to?
    General Casey. I am not.
    Chairman Levin. Okay, that is fair. That is a straight 
answer.
    We have talked a little bit about what General Shinseki 
said here about needing more troops and about the way he was 
treated. Do you have any feelings about the way he was treated 
after he spoke honestly about his opinion?
    General Casey. I do not think he was treated well.
    Chairman Levin. You have indicated on a number of occasions 
that your efforts were thwarted by Iraqi leaders.
    By the way, I could not agree with you more relative to 
Shinseki. I think he was treated miserably and that message I 
think was an insult to everybody in uniform. But I will leave 
it at that. You gave me an answer which is perfectly consistent 
with what I just said, although perhaps not as purple in its 
prose.
    General, you have indicated this morning that you raised a 
number of problems when, a number of times you were thwarted, 
more accurately when Prime Minister Jafari objected to 
something you were trying to get done and Prime Minister Maliki 
I believe did not insist that his troops act without political 
interference, indeed involved himself. He would not allow 
certain things to happen.
    You objected to that because you were trying to make things 
happen. Did you tell your chain of command? Did you take that 
to the higher level in those cases and tell either General 
Abizaid or the Chairman of the Joint Chiefs or whoever you 
would have been reporting to, probably General Abizaid, that 
you were having those problems?
    General Casey. Yes. I would not write a report or 
something, but in my discussions with them, which were 
frequent, I would highlight the difficulties I was having. But 
I will tell you, Senator, I have watched Prime Minister Maliki 
grow over the last 8 months and over the last several months 
there have been no restrictions on what we are doing. That has 
changed over time and I think changed for the positive.
    Chairman Levin. You were asked in your prehearing questions 
what were the most significant mistakes the United States has 
made to date in Iraq, and you had quite a long list of 
mistakes. You did not list among those mistakes some of the 
most commonly agreed to mistakes. I will not say that everyone 
has agreed to these, but these have been noted and they are 
significant.
    General Casey. I kind of stuck to the things on my watch.
    Chairman Levin. I see.
    General Casey. I tried not to go back to the beginning.
    Chairman Levin. One of the things which has affected you 
was the disbandment of the Iraqi army. That was before your 
watch, but nonetheless, do you have any feelings about that 
action as to whether that was a wise course, to not bring the 
Iraqi army back from their homes? Not the top level officers, 
but most of the people who were in the army. Was that a mistake 
in your judgment?
    General Casey. Looking back, the Iraqi army was suspect to 
80 percent of the country, the Kurds and the Shia.
    Chairman Levin. Even though the Shia made up most of the 
army?
    General Casey. Right, but it was the leadership.
    Chairman Levin. The leadership was suspect. I am talking 
about 80 percent of the army, not the leaders.
    General Casey. Right.
    Chairman Levin. The people who were thrown out of work with 
guns and no pay.
    General Casey. I understand.
    Chairman Levin. Was that a mistake?
    General Casey. I cannot talk to the timing of how it was 
done, but my sense is something would have had to have been 
done with that Iraqi army that was the instrument of repression 
by the Saddam Hussein regime. The other thing I will tell you--
--
    Chairman Levin. Would the removal of the top leadership 
have sent the right signal?
    General Casey. It certainly could have.
    Chairman Levin. What about the de-Baathification program? 
Did it go too far?
    General Casey. It did. It still is.
    Chairman Levin. What about the failure to adequately plan 
for the occupation, looking at a worst case scenario or a more 
complex occupation? Was that a mistake?
    General Casey. It certainly was, and it was compounded by 
the execution.
    Chairman Levin. Now, what the President himself said is 
that he had a choice to make--he just said this a couple weeks 
ago--``to do what we were doing, and one could define that 
maybe a slow failure, or change what we were doing.'' So the 
President has described what was happening before he made his 
change of strategy--regardless of whether we think it was a 
significant change or not; that is not the point at the 
moment--he defined what was happening as, ``maybe a slow 
failure,'' and that we needed to change strategy.
    Do you agree with that description of what was happening?
    General Casey. Slow failure? Do I agree that Iraq was 
moving toward a slow failure?
    Chairman Levin. That maybe what was happening--I am using 
the President's exact words because he did not say it was. He 
said maybe was a slow failure. You have said that you did not 
think it was a failure. I am asking you, since the President 
described what was happening as ``maybe a slow failure,'' do 
you----
    General Casey. It is not lost on me that the Commander in 
Chief was not satisfied with what was going on.
    Chairman Levin. But his description--even he came to the 
point after all these years of not having what everybody 
wanted, which is success in Iraq, he finally described mistakes 
were made, and then he said, yes, one could define that, doing 
what we are doing, as ``maybe a slow failure.''
    I am just wondering whether you would agree with that.
    General Casey. I actually do not see it as slow failure. I 
actually see it as slow progress.
    Chairman Levin. All right. My time is up and I think 
Senator Sessions is next. Senator Sessions, we did not pass 
over you this time.
    Senator Warner. Senator, would you yield just for a moment?
    Senator Sessions. I would be pleased to.
    Senator Warner. I want to catch this last vote.
    General, I have been here throughout this hearing and it 
has been a good tough one and a thorough one. But your 
testimony today has reinforced my earlier opinion when I 
arrived here at the beginning this morning that you are the 
President's choice for Chief of Staff of the Army. The 
institution of the Army is really involved in this, that 
wonderful institutional tradition of the Army, and you will 
have my support.
    General Casey. Thank you very much, Senator.
    Chairman Levin. Thank you.
    Senator Sessions. General Casey, I am not comfortable with 
this insistence on trying to work the word ``failure'' into 
what is happening. I think we are all uneasy. I think the 
American people are uneasy. They are troubled. Things have not 
gone as well as we would like, and you have said that several 
times. But ``failure'' suggests a doomed event, and you have 
been through that now 30 months. You have worked with the Iraqi 
government and I am sure have been frustrated many times on the 
difference of cultural responses and the different leaderships 
they have had there and all.
    Do you feel like under the plan that has been proposed and 
we intend to carry out that we can be successful in Iraq?
    General Casey. I do. I believe, as I said in my testimony, 
the situation in Iraq is winnable. It is very winnable. It is 
hard, though.
    Senator Sessions. It is hard and it is slow, and there are 
good days and bad days, good months and bad months. Would you 
say it that way?
    General Casey. There are.
    Senator Sessions. Senators Levin and Warner and I, and I 
believe Mark Pryor, were in Ramadi. We were briefed by the 
Marine colonel, intelligence officer in the command, and we 
were troubled by the reports that we got at that time. I had 
the opportunity to talk with General Peter Pace, the Chairman 
of the Joint Chiefs, last night for a good while and I asked 
him about that. He said that same briefer briefed him several 
months later and had seen some significant steps for progress 
being made. You seem to be saying the same thing.
    So in this kind of counterinsurgency operation that we are 
in, is it not a mistake to go into any one particular area of 
the country at a given day, whether it is up or down, and try 
to express a total evaluation of our entire effort?
    General Casey. Absolutely. One of the things that I do that 
most people do not is I look at the whole country and I travel 
about the whole country. I have been to every province, visit 
the units there. I get assessments from the guys and gals that 
are out there on the ground dealing with the Iraqis every day.
    A lot of what comes out of Iraq is Baghdad-centric and it 
comes out of the Green Zone, and you really have to get out and 
around Iraq to get a full appreciation of what is going on 
there. Again, I am not sugar-coating the situation in Baghdad. 
It is bad.
    Senator Sessions. You do agree that since such a large 
percentage of the population is there and it is the capital, 
that Baghdad must be secured? That is a critical event for us 
right now?
    General Casey. It is, Senator.
    Senator Sessions. We have around 23,000 troops in 
Afghanistan. They have almost the same population as Iraq. I 
think a lot of us hoped that we could keep the numbers down. 
But Iraq has turned out to be more complex and difficult and 
more violent and it has required us to maintain troops longer 
than I would have liked. Hopefully, this will be a surge that 
can lead to progress and we can get back on the path that you 
tried to get us on, which is a downward drawing of our troops 
and continuing to push up the Iraqi troops.
    I am concerned, General Casey, about our prison and law 
enforcement system there. To follow up on Senator Warner's 
comment first, if we need more prison beds to place people who 
have been convicted and arrested by Iraqi forces, is that the 
U.S. military or is that the State Department ambassador's role 
to find the money for that?
    General Casey. That is the State Department.
    Senator Sessions. If we need to create a new trial system, 
which I strongly think should be a military trial system, 
because we are in such a state of disorder, and try those 
people who are threats against the state in an Iraqi military 
court system, would that be the State Department's 
responsibility to get such a court system up or the military?
    General Casey. The State Department is responsible for the 
rule of law and for assisting the Iraqis in developing the rule 
of law institutions.
    Senator Sessions. They bring in the Department of Justice 
and others?
    General Casey. Yes.
    Senator Sessions. I just want to tell you, I am not happy 
with that. I do not think we have gotten nearly far enough 
along. As I have noted, we have one-ninth as many bed spaces 
and prisoners in custody in Iraq per capita as we have in 
Alabama. I saw another military writer in a military journal 
write that on a per capita basis there was about six times as 
many in prison in Vietnam during that conflict.
    It just indicates, objectively looked at, that we have a 
lot of dangerous people out there, and if they are not 
arrested, apprehended, and removed, then you cannot have 
credibility in a city like Baghdad. They need to know that when 
somebody bad is caught they are gone, it is not a revolving 
door.
    Are you aware of the complaints in that regard and will you 
take steps as Chief of Staff to support efforts to improve the 
law enforcement system there?
    General Casey. In Iraq?
    Senator Sessions. Yes.
    General Casey. We work closely with the embassy on the rule 
of law program. As you suggest, it is something that needs an 
awful lot more work.
    Senator Sessions. General Casey, that is what we hear over 
and over again. But it is your soldiers that are out there day 
after day being shot at, sometimes by the same people that were 
caught and released. I am glad you say it is the State 
Department's responsibility, but really it is the United 
States' responsibility. It is our soldiers there, our policy 
that we need to execute.
    I guess I want you to say that you will break some china if 
need be to get this thing moving, if we have to get on the 
State Department or have it transferred to the military to get 
it done.
    General Casey. I will.
    Senator Sessions. That is good.
    General Casey. Can I just say, though, that we also have 
our own detention system where we have about 15,000 Iraqis, and 
that does not operate in a catch and release program, and we 
are actually expanding our capacity by another 4,000 or 5,000 
so that we can continue to hold the Iraqi security detainees 
and not have to put them back out on the street. So we work 
that and watch that very closely.
    Senator Sessions. One final brief question. Prime Minister 
Maliki is elected. He is a politician like we are. He has 
constituencies. His people have pride and he has some pride. 
Would you say we want him to assume responsibility, we want him 
to declare it is his responsibility to run Iraq, and we ought 
to be somewhat sympathetic and understanding if he takes the 
position he does not need help and his people can do it?
    You express that better than I. But I sense a tension there 
between his desire to be a strong leader for his country and to 
create an independent Iraq that is not run by the United 
States, at the same time they are just not able to do 
everything there.
    General Casey. I would say that that is an accurate 
description of his desires. He does want to be in charge, not 
only of the government but of his security forces, and we are 
working with him to enable him to do that. But that is a good 
thing. That is a good thing.
    Senator Sessions. Thank you.
    Chairman Levin. Senator Sessions, thank you.
    Senator Reed.
    Senator Reed. Thank you, General. It has been a long 
morning, but I have a couple of points I would like to raise 
with you.
    In your written submission you suggest that, in response to 
our operations in Baghdad, that the Shia militias would likely 
lie low, perhaps at the behest of their colleagues in the 
government, who have been urging them to do that, but that the 
Sunnis would tend to hunker down in the neighborhoods because 
they are connected to the neighborhoods, which raises I think 
in my mind at least the question that the effect of our 
operations or the perception of our operations at least 
initially would be that we are conducting generally attacks 
against Sunni forces at the behest of the Shia government, 
which could be exploited and, frankly, the opposition has been 
much more adroit than we have in the information warfare, as a 
way of showing us that we have thrown our lot in with the Shia, 
we are attacking the Sunnis.
    That I think will harden the resistance in the Sunni 
community to reconciliation and it certainly will create a 
regional dynamic where Sunni governments, sympathizers in the 
region might be compelled to, if not enter, at least to provide 
increased support.
    Is that a concern of yours?
    General Casey. It is a concern and it is something that 
both we and the Iraqis are concerned about. That is part of the 
prime minister's commitment, is evenhanded enforcement of the 
law against anyone who breaks it. So we are working with the 
Iraqi planners to ensure that the operations that are conducted 
are conducted in a balanced fashion.
    Senator Reed. But it seems again, and I tend to agree with 
your assessment of the likely at least initial reaction, that 
the Shia militia are deliberately avoiding contact with us. If 
the Sunnis are in such position where they can--and you and I 
have both had conversations with the prime minister and when 
you talk about the insurgency it is a Sunni insurgency. The 
sectarian violence is something that does not register as 
forcefully in his mind as it does in ours. It is a Sunni 
insurgency, and we are going after that Sunni insurgency. Those 
are literally his words to me.
    I think this is potentially a very serious consequence of 
this operation. But let me ask you an additional question. Let 
us assume there is a period of remission, but the cancer still 
exists. The cancer is militias, both Sunni and Shia, with the 
capacity to quickly assume the battle. The other part of the 
cancer I think is a dysfunctional Iraqi government, not just 
its security services but its whole governmental apparatus.
    If we do have this period of remission, what do we do? Is 
that a justification to withdraw forces, or do we have to 
continue to stay there at a very substantial force level 
because these capacities still exist? The bottom line is, how 
long do you think we will be keeping roughly 140,000 troops in 
Iraq, but more precisely 20,000-plus, 30,000 American forces in 
Baghdad, maneuver forces? I am not talking about anything but 
maneuver forces.
    General Casey. I mentioned the metrics earlier about we 
have some ways of trying to figure out are we making progress 
in Baghdad or are we not. There certainly is a chance that 
people will leave town, lie low. What I said in my opening 
testimony is for this to be successful the Iraqi security 
forces have to emerge as the dominant security force. So in 
addition to the security operations, in addition to 
establishing these bases that will maintain, allow them to 
maintain security force presence in these areas to prevent a 
return, it also needs to be worked on the political side to 
remove political support from the militia.
    So that takes time. Now, my sense is, as I have said 
publicly, we will start seeing an impact in 60 days or so, I 
think. One way or the other, we will start seeing an impact. 
Assuming things continue to progress positively, it will 
probably be the end of the summer before Baghdad is at a level 
of security that people are more inclined to feel comfortable 
with.
    What happens with respect to our forces after that, it is 
up to somebody else to figure out. But I would look at the 
results on the ground and decide what I needed and what I did 
not need.
    Senator Reed. Just a final comment. One of the unfortunate 
aspects of this whole operation is what progress we have made 
has been reversed in some cases. I think, as you suggested, 
before the Samarra bombing we thought we had made real 
progress, that things were going our way, and then it was 
quickly and suddenly reversed. That is a concern I have going 
forward, that we might get a remission, but unless we make 
fundamental changes--and I think what you also suggested is 
that--and this goes I think to the focus of the difference 
between your approach and those who have criticized you, is 
that, at what point will the Iraqi forces be capable of taking 
a lead and sustaining that leadership.
    In the past you have thought they were and it turned out 
that they did not have that capacity, or at least that is the 
perception. I think going forward that is going to be one of 
the critical issues that we all have to address. You will not 
be doing that job. You will be Chief of Staff of the Army. But 
I think we will be still considering that issue.
    I do not know if you have a final comment, but I thank you 
for your patience and your testimony.
    General Casey. Thank you.
    Chairman Levin. General, I think you have said that a 
political settlement is essential if there is going to be an 
end to the violence in Iraq; is that fair? Does that represent 
your view?
    General Casey. Political reconciliation, yes.
    Chairman Levin. Right. That is going to require an 
agreement on power sharing, resource sharing, autonomy issues, 
on the political side.
    General Casey. Right.
    Chairman Levin. Is that correct?
    General Casey. That is where those benchmarks come from.
    Chairman Levin. Right.
    General Casey. Those benchmarks are the key political 
agreements they have to happen.
    Chairman Levin. Those are benchmarks, those promises have 
been made long ago. There was supposed to be a commission which 
would look at proposed changes to the constitution that was 
supposed to come into existence 90 days after the assembly took 
office; is that not correct?
    General Casey. They formed the commission. The commission 
is meeting, I am told.
    Chairman Levin. Have they followed their benchmark for 
reporting to the assembly, do you know?
    General Casey. I think my recollection is there is a 
benchmark coming up here in January.
    Chairman Levin. For reporting to the assembly?
    General Casey. I believe so. I think they have 4 months to 
come back.
    Chairman Levin. I think the original law of Iraq was that 
90 days after they took office they were supposed to report 
back in 4 months, 120 days after, that they were supposed to 
report back. That was not met, is that accurate? They did not 
do that in 120 days?
    General Casey. They are reporting back I think about 4 
months after they formed the commission.
    Chairman Levin. But not 4 months after the assembly was 
created; is that correct?
    General Casey. I think that is right.
    Chairman Levin. You have talked about the training and you 
made a couple references here, one to the length of time it was 
supposed to take to train the Iraqi security forces. You said 
this was a 3-year program at one point, but that does not mean 
that for each of the troops in the Iraqi security forces it 
would be a 3-year training program. It is like a 6-week 
training program.
    General Casey. Exactly. I am speaking about the 
institutions of the military and police forces.
    Chairman Levin. All right. But in terms of the numbers that 
have been trained and equipped to take the lead, that number is 
now at?
    General Casey. Over 300,000.
    Chairman Levin. 300,000.
    General Casey. About 330,000.
    Chairman Levin. About half of those are army?
    General Casey. 135,000 army, 190,000 police.
    Chairman Levin. So 135,000 army are now trained and 
equipped and 190,000 police are now trained and equipped?
    General Casey. We have trained 135,000 army soldiers and 
equipped them. Okay, now, of that group--both army and police, 
there have been 26,000 Iraqi security forces that we have 
trained that are killed or wounded to the point where they 
cannot work.
    Chairman Levin. So there is 130,000 roughly army that have 
been----
    General Casey. Been through the country.
    Chairman Levin. Through our program.
    General Casey. Right.
    Chairman Levin. Trained, equipped, and ready to take the 
lead, theoretically?
    General Casey. No.
    Chairman Levin. No?
    General Casey. Three steps. Trained and equipped: they are 
formed, they are given their uniforms, they are organized into 
units, and they have had some basic level of training, step 
one. Step two, in the lead: They begin to function with our 
transition teams and they grow as units so that they get to the 
point where they can do counterinsurgency operations with our 
support. Step three: independence.
    Chairman Levin. Now, step two; how many of the 135,000 have 
finished step two?
    General Casey. We look at units.
    Chairman Levin. How many units?
    General Casey. Right now, 8 out of 10 divisions are in the 
lead. I want to say 30 out of 36 brigades, and probably 90 or 
so of the 112 battalions are in the lead.
    Chairman Levin. So now translate that into people? Roughly 
how many of the 135,000 are in those units you just described 
that are in the lead, roughly?
    General Casey. Right. What I will do is I will take off the 
air force and the navy, and so I would say probably around 
120,000.
    Chairman Levin. 120,000, okay.
    General Casey. That is a SWAG, but----
    Chairman Levin. No, that is fine.
    You have indicated that the piece of paper which was 
delivered by Mr. Maliki to our President in Amman probably did 
not say that they needed American troops; they probably would 
have said they needed additional or they needed troops; is that 
correct?
    General Casey. That is my recollection.
    Chairman Levin. Why would he not have used those troops 
that you just referred to that were trained and equipped to do 
the Baghdad job? Or did he, or do you not know?
    General Casey. No, he did. But the rest of the country 
still requires security forces, and we are drawing----
    Chairman Levin. But the rest of the country is pacified 
more. You said the big problem is Baghdad. Why would he not 
move enough troops to Baghdad to do what needs to be done in 
Baghdad since the rest of the country is calmer?
    General Casey. He is doing that, and he has moved two 
brigades, moving another brigade from the west, from the north, 
into Baghdad.
    Chairman Levin. So how many troops of his would then be in 
Baghdad after he makes the move?
    General Casey. Of his?
    Chairman Levin. Yes.
    General Casey. Total I would say somewhere between 60,000 
and 70,000.
    Chairman Levin. Which leaves about another how many, 60,000 
that are trained and equipped and able to take the lead?
    General Casey. Armed forces throughout the rest of the 
country?
    Chairman Levin. Right.
    General Casey. Ballpark.
    Chairman Levin. What we are going to do is request the 
White House to tell us what apparently you are not sure of, 
which is whether Maliki was more specific as to whether he 
wanted or did not want American troops to be part of the 
Baghdad operation. You said you think he just said troops in 
that piece of paper that he dropped----
    General Casey. But I think I also said that he leans toward 
not wanting to have to bring in more coalition forces, and when 
we have gone to him in this particular case with his commanders 
and the ministers and said, this is what we need for this 
mission, he has said okay.
    Chairman Levin. This is what we need.
    General Casey. Right.
    Chairman Levin. This is what we need. What America needs?
    General Casey. We collectively, Iraqis and coalition 
forces, three Iraqi, two coalition.
    Chairman Levin. Then he accepted that?
    General Casey. He accepted that.
    Chairman Levin. But that was our proposal?
    General Casey. That was a joint proposal from the Iraqi 
ministers and us.
    Chairman Levin. You got together with the Iraqi ministers 
and then went to the prime minister and made a statement to him 
that, we believe this mission requires coalition forces?
    General Casey. That is correct.
    Chairman Levin. Would you say the Iraqi military that were 
involved in the statement to the prime minister were persuaded 
of that? Did they initiate the idea or did we initiate the 
idea?
    General Casey. It came out of our planning, but they 
accepted and even endorsed the idea.
    Chairman Levin. So it came out of our--I will not repeat 
what you said. I think that addresses the question in an 
adequate way.
    My time is up. Senator Sessions.
    Senator Sessions. No, thank you.
    Chairman Levin. I think the only other question that I 
have----
    General Casey. Do I have Dan Cox to thank for all these 
questions? [Laughter.]
    Chairman Levin. No. No, he shares the load. [Laughter.]
    Senator Sessions. While you are looking----
    Chairman Levin. Yes.
    Senator Sessions. To follow up now on our soldiers and what 
they have there, you have issued orders--I believe it is you--
that Humvees and vehicles should not be outside protected areas 
that are not up-armored to specifications; is that correct?
    General Casey. That is correct, sir.
    Senator Sessions. Is any soldier being sent out on patrol 
or duty without kevlar, the vests that they have, the equipment 
that they are authorized and expected to have?
    General Casey. I hope not.
    Senator Sessions. That would be against policy and 
procedure?
    General Casey. Absolutely.
    Senator Sessions. You believe you have in theater 
sufficient equipment and that day after day when they are out 
there doing their duty they have the specified equipment, 
protective gear, and that kind of thing? I guess I want to say 
to American mothers and fathers and family members, we keep 
hearing this talk about shortage of equipment. Can you tell us, 
are they not pretty well-equipped?
    General Casey. They are very well-equipped. The discussion 
today about this report about a lack of equipment is not 
something that I have heard as I have gone out and visited the 
soldiers, and I rarely if ever get comments from soldiers about 
things they do not have, and I ask.
    Senator Sessions. If you become Chief of Staff, do you 
understand it is your responsibility to make sure that 
equipment--ultimately it is your responsibility to see that 
equipment gets to the soldier in the field so that General 
Petraeus or whoever is commanding them can have it if they need 
it?
    General Casey. I do.
    Senator Sessions. You will accept that responsibility?
    General Casey. I go after it hard.
    Senator Sessions. I know we have shortages here and there, 
but I do believe that when I have been there that the equipment 
is there and we have done a pretty darn good job of doing it in 
a very distant, difficult land.
    General Casey. I think so, too.
    Chairman Levin. This is a question which Senator Reed 
raised and I want to just press you a little bit harder on it. 
That has to do with the militias going underground, which 
apparently they are going to do, and taking their arms with 
them. Is that troubling for you?
    General Casey. It is something we have to watch. As I said, 
before we go the militias are going to have to be dealt with, 
and we need to deal with them in a security way and in a 
political way. But at the end of the day the Iraqi security 
forces have to be the dominant force in Iraq, and right now 
they are not, without our help.
    Chairman Levin. Can they be dealt with without dealing with 
the political issues which are there?
    General Casey. No. They can, but it would be much more 
violent.
    Chairman Levin. Do you agree that there is usefulness to 
political pressure being placed on the Iraqi leaders to reach 
settlements?
    General Casey. Absolutely. But if I could comment on that, 
it is not just Prime Minister Maliki that people need to 
pressure. There is a political base in the United Alliance that 
is very responsible for the policies that he is following. So 
pressure along a range of leaders from Iraq is in my view much 
more productive than just squeezing the prime minister.
    Chairman Levin. No, I agree. That is why I always say Iraqi 
political leaders, not just the prime minister. But that is a 
necessary ingredient if there is going to be a solution in your 
opinion?
    General Casey. It is. The other thing that I think it was 
useful in pushing Iraqi leaders toward a reconciliation, is the 
discussion about accountability. Saddam Hussein was just hung 
for his crimes against the people of Iraq. But thousands of 
Iraqis have died over the past year at the hands of death 
squads. There has to be an accountability for that, too, and I 
think the Iraqi political leaders need to understand that.
    Chairman Levin. Senator Sessions, I think, has focused on 
what is essential if there is going to be accountability, which 
is that there not be a catch and release program. We thank him 
for his leadership in this area. He has really focused on 
something that is important in terms of accountability and 
justice being dispensed in Iraq.
    General, unless there are additional questions, we will 
stand adjourned. We thank you for your stamina. I know it is 
nothing probably in terms of your experience wearing that 
uniform; this stamina is probably pretty mild, at least in 
terms of how much time you sat there. But in any event, we 
thank you for your service and we thank again your family.
    General Casey. Thank you very much, Senator.
    Chairman Levin. We will stand adjourned.
    [Whereupon, at 1:34 p.m., the committee adjourned.]

    [Prepared questions submitted to GEN George W. Casey, Jr., 
USA, by Chairman Levin prior to the hearing with answers 
supplied follows:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense (DOD) 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff (JCS). These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Goldwater-Nichols has significantly improved our ability to 
conduct joint operations. I have no specific recommendations for 
modifying the act itself.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. There is good reason to consider the development of 
Goldwater-Nichols Act-like legislation to delineate roles and 
responsibilities of Federal agencies in support of contingency 
operations.
    Question. Do you believe that the role of the chiefs of staff under 
the Goldwater-Nichols legislation is appropriate and the policies and 
processes in existence allow that role to be fulfilled?
    Answer. Yes.

                             RELATIONSHIPS

    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the commanders of the combatant 
commands. Other sections of law and traditional practice, however, 
establish important relationships outside the chain of command. Please 
describe your understanding of the relationship of the Chief of Staff 
of the Army to the following offices:
    Secretary of Defense.
    Answer. The Secretary of Defense, as the head of DOD and the 
principal assistant to the President in all matters relating to DOD, 
issues guidance and direction to the military departments. If 
confirmed, I will be responsible to the Secretary of Defense and his 
Deputy, through the Secretary of the Army, for the operation of the 
Army in accordance with such directives. As a member of the JCS, I will 
serve as a military adviser to the Secretary of Defense, as 
appropriate. I will cooperate fully with the Secretary of Defense to 
ensure that the Army properly implements the policies established by 
the Office of the Secretary of Defense (OSD). In coordination with the 
Secretary of the Army, I will communicate with the Secretary of Defense 
in articulating the views of the Army.
    Question. The Under Secretaries of Defense.
    Answer. Acting on behalf of the Secretary of Defense, the Under 
Secretaries perform responsibilities that require them, from time to 
time, to issue guidance--and in the case of the Under Secretary of 
Defense for Acquisition, Technology, and Logistics, direction--to the 
military departments. If confirmed, in coordination with the Secretary 
of the Army, I will communicate with the Under Secretaries in 
articulating the views of the Army. I will work closely with them to 
ensure that the Army is administered in accordance with the guidance 
and direction issued by OSD.
    Question. The Assistant Secretaries of Defense.
    Answer. The Assistant Secretaries of Defense have functional 
responsibilities that, from time to time, require the issuance of 
guidance to the military departments. If confirmed, I will, in 
coordination with the Secretary of the Army, communicate with the 
Assistant Secretaries of Defense in articulating the views of the Army. 
I will cooperate fully with them to ensure that the Army is 
administered in accordance with guidance promulgated by OSD.
    Question. The Chairman of JCS.
    Answer. The Chairman of JCS is the principal military adviser to 
the President, the National Security Council, and the Secretary of 
Defense. Subject to the authority, direction, and control of the 
President and the Secretary of Defense, the Chairman plans the 
strategic direction and contingency operations of the Armed Forces; 
advises the Secretary of Defense on requirements, programs, and budgets 
identified by the commanders of the combatant commands; develops 
doctrine for the joint employment of the Armed Forces; reports on 
assignment of functions (or roles and missions) to the Armed Forces; 
provides for representation of the United States on the Military Staff 
Committee of the United Nations; and performs such other duties as may 
be prescribed by law or by the President or Secretary of Defense.
    In conjunction with the other members of the Joint Chiefs, the 
Chief of Staff of the Army assists the Chairman in providing military 
advice to the President, the National Security Council, and the 
Secretary of Defense. If confirmed, as a member of JCS, it would be my 
duty to provide frank and timely advice and opinions to the Chairman to 
assist him in his performance of these responsibilities. If confirmed, 
in addition, upon request, I will as a member of JCS provide my 
individual military advice to the President, the National Security 
Council, and the Secretary of Defense. As appropriate, I will provide 
advice in addition to or in disagreement with that of the Chairman. I 
will establish and maintain a close and professional relationship with 
the Chairman and will communicate directly and openly with him on 
policy matters involving the Army and the Armed Forces as a whole.
    Question. The Vice Chairman of JCS.
    Answer. The Vice Chairman of JCS assists the Chairman in providing 
military advice to the Secretary of Defense and the President. If 
confirmed as a member of the Joints Chiefs of Staff, it would be my 
duty to ensure that the Vice Chairman is provided my frank views and 
opinions to assist him in his performance of his responsibilities.
    Question. The Secretary of the Army.
    Answer. If confirmed, my relationship with the Secretary of the 
Army would be close, direct, and supportive. My responsibilities would 
also involve communicating the Army Staff's plans to the Secretary of 
the Army and supervising the implementation of the Secretary's 
decisions through the Army Staff and Army commands and agencies. In 
this capacity, my actions would be subject to the authority, direction, 
and control of the Secretary of the Army. In my capacity as a member of 
JCS, I would also be responsible for appropriately informing the 
Secretary of the Army about conclusions reached by JCS and about 
significant military operations, to the extent such action does not 
impair independence in the performance of duties as member of JCS. I 
anticipate that I would at all times work closely and in concert with 
the Secretary of the Army to establish the best policies for the Army 
in light of national interests.
    Question. The Under Secretary of the Army.
    Answer. The Under Secretary of the Army is the Secretary's 
principal civilian assistant and performs such duties and exercises 
such powers as the Secretary of the Army prescribes. His 
responsibilities require him, from time to time, to issue guidance and 
direction to the Army Staff. If confirmed, I will be responsible to the 
Secretary of the Army, and to the Under Secretary through the Secretary 
of the Army, for the operation of the Army in accordance with such 
directives. I will cooperate fully with the Under Secretary of the Army 
to ensure that the policies established by the Office of the Secretary 
of the Army are properly implemented. I will communicate openly and 
directly with the Under Secretary of the Army in articulating the views 
of the Army Staff, Army commands, and Army agencies.
    Question. The Assistant Secretaries of the Army.
    Answer. The Assistant Secretaries of the Army have functional 
responsibilities that, from time to time, require the issuance of 
guidance to the Army Staff and to the Army as a whole. If confirmed, I 
will establish and maintain close, professional relationships with each 
of the Assistant Secretaries to foster an environment of cooperative 
teamwork between the Army Staff and the Army Secretariat as we deal 
together with the day-to-day management and long-range planning 
requirements facing the Army.
    Question. The General Counsel of the Army.
    Answer. The General Counsel is the chief legal officer of the 
Department of the Army. His duties include coordinating legal and 
policy advice to all members of the Department regarding matters of 
interest to the Secretariat, as well as determining the position of the 
Army on any legal questions or procedures other than military justice 
matters assigned to The Judge Advocate General. If confirmed, I will 
establish and maintain a close, professional relationship with the 
General Counsel to assist him in the performance of these important 
duties.
    Question. The Judge Advocate General of the Army.
    Answer. The Judge Advocate General serves as the Chief of Staff's 
principal legal advisor. He provides legal advice concerning the 
organization, powers, duties, functions and administrative procedures 
of the Army. The Judge Advocate General also advises the Chief of Staff 
on military justice matters, environmental law, international law 
issues arising from deployment of U.S. forces overseas and 
implementation of the DOD Law of War Program. The Chief of Staff does 
not appoint The Judge Advocate General, and does not have the personal 
authority to remove him. This enables the The Judge Advocate General to 
provide independent legal advice to the Chief of Staff.
    Question. The Chiefs of Staff of the other Services.
    Answer. If confirmed, as a member of JCS, it would be my duty to 
engage in frank and timely exchanges of advice and opinions with my 
fellow Service Chiefs in their roles as members of JCS. I look forward 
to developing strong working relationships with these colleagues, many 
of whom I know from previous service.
    Question. The combatant commanders.
    Answer. Subject to the direction of the President, the combatant 
commanders perform their duties under the authority, direction, and 
control of the Secretary of Defense, and are directly responsible to 
the Secretary of Defense for the preparedness of their commands to 
carry out missions assigned to them. As directed by the Secretary of 
Defense, the military department secretaries assign all forces under 
their jurisdiction, except those forces necessary to perform the 
missions of the military departments, to the combatant commands to 
perform missions assigned to those commands. In addition, subject to 
the authority, direction, and control of the Secretary of Defense and 
the authority of combatant commanders under title 10, U.C.S., section 
164(c), the military department secretaries are responsible for 
administering and supporting the forces that they assign to a combatant 
command. If confirmed, I will cooperate fully with the combatant 
commanders in performing these administrative and support 
responsibilities. I will establish close, professional relationships 
with the combatant commanders and communicate directly and openly with 
them on matters involving the Department of the Army and Army forces 
and personnel assigned to or supporting these commands.

                             QUALIFICATIONS

    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I have a fundamental grounding and practical experience in 
Army, joint, and coalition organizations from the tactical through the 
strategic level. I spent 21 years in the Army learning my craft in 
tactical organizations or tactically-focused schooling including one-
third of that time in command of soldiers and numerous training and 
operational deployments. I served in a variety of command and staff 
positions where I gained experience in strategic and combined 
operations including a tour as a military observer in the United 
Nations Truce Supervision Organization in Jerusalem, a tour of duty in 
the Army's Office of Legislative Liaison, service on Army, Joint Forces 
Command, and the Joint Staffs, and as Commander of the Multinational 
Force Iraq deployed in Iraq for the last 30 months. I also served as 
the Vice Chief of Staff, Army, and I believe this has provided me broad 
knowledge, experience, and insight into the business of running the 
Army in support of the requirements of the national security strategy. 
In particular my tour of duty in Iraq has caused me to recognize the 
quality of our service men and women and the need to focus on them and 
their families if we are to sustain the magnificent force we have 
today.

                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges confronting 
the next Chief of Staff of the Army?
    Answer. Growing the Army by 65,000 over 5 years in a manner that 
balances current warfighting requirements, responsible allocation of 
resources, and future strategic needs.

        <bullet> Recruiting and retaining quality soldiers, civilians, 
        and families.
        <bullet> Resetting units, equipment, and personnel following 
        deployment so they can respond to strategic requirements as 
        rapidly as possible.
        <bullet> Maintaining readiness appropriate to mission 
        requirements while continuing to fight a war on terror.
        <bullet> Balancing future investment strategies with resource 
        realities.

    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, my first priority will be to get out and 
assess the situation first-hand by talking to soldiers, civilians, and 
families as well as the combatant commanders they serve.
    My second priority will be to develop effective plans to maintain 
our position as the finest Army in the world in a manner consistent 
with future requirements and resources. I intend to work closely with 
appropriate agencies in both executive and legislative branches to 
develop and execute these plans.

                         MOST SERIOUS PROBLEMS

    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Chief of Staff of the Army?
    Answer. Management of an Army at war while preparing that Army for 
the long-term challenges of the global war on terror, as well as for 
as-yet unforeseen requirements in service to the Nation in the future.
    Question. What management actions and time lines would you 
establish to address these problems?
    Answer. If confirmed, I will work closely with the other Joint 
Chiefs, the Secretary of the Army and, through him, the Secretary of 
Defense to quickly develop balanced and realistic approaches to solving 
these problems.

                         VISION FOR THE FUTURE

    Question. What is your vision for the Army of the future?
    Answer. The current Army Vision is well-accepted and relevant. If 
confirmed, I intend to assess the current state of the Army and its 
expected operating environment in the future; identify major issues, 
challenges, and opportunities; assess existing plans and programs; and 
confirm if current initiatives conform to the proper strategic 
direction. Where I believe change is warranted, I will, in consultation 
with the Secretary of the Army, propose refinement and/or resource 
reallocation.
    Question. What roles do you believe the Army should play in 
contingency, humanitarian, and peace operations?
    Answer. The Army provides relevant and ready forces to the 
combatant commanders and it develops soldiers, leaders, equipment, and 
organizations for the future. To do this the Army must be resourced 
appropriately to accomplish these tasks consistent with the strategic 
direction of the Nation's civilian leadership.
    Question. Do you see any unnecessary redundancy between Army and 
Marine Corps ground combat forces, particularly between Army light 
divisions and Marine Corps divisions?
    Answer. No. The entire DOD force structure must be looked at in 
terms of combatant commander requirements. Infantry Brigade Combat 
Teams (IBCTs) provide capabilities as unique to the Army as U.S. Marine 
Corps formations do for the Marines. Some IBCTs are specially trained 
in airborne operations, others through habitual association with 
assault helicopter organizations, are specially trained for air assault 
operations. At the same time, U.S. Marine Corps forces are specially 
trained for amphibious operations.

                      ARMY ROLE IN THE JOINT FORCE

    Question. The U.S. military fights as a joint force and strives to 
achieve realistic training for military operations. The Army provides 
trained and equipped forces for joint military operations.
    How do you believe the Army can best contribute to improved joint 
military capabilities while preserving its service unique capabilities 
and culture?
    Answer. The Army exists to serve the American people, to protect 
vital national interests, and to fulfill national military obligations. 
The Army's title 10 responsibility to the Nation is to provide 
responsive and ready land power--the best manned, trained, equipped, 
and led forces this Nation can produce--to combatant commanders in 
support of national strategies. It is also charged with providing 
combat enabling capabilities and support to facilitate the other 
Services to accomplish their missions. The Army brings to the fight 
several capabilities to improve joint warfighting effectiveness.
    First and foremost, the Army deploys and employs Army soldiers--
boots-on-the-ground (BOG)--a clear demonstration of our Nation's 
resolve to protect and defend its national interests and protect the 
interests of our allies. Over the past 4 years, the Army has become 
more expeditionary, changing from its traditional divisional structure 
to a modular brigade-based force. This change has been extraordinary; 
particularly given the global force demand and the fact that we have 
essentially been developing and institutionalizing these capabilities 
while we are at war. This change is producing a rapidly deployable, 
power projection Army that is part of a joint team. It is of 
unprecedented campaign quality, with agile and adaptive leaders that 
are comfortable executing throughout the entire spectrum of conflict. 
The Army is able to achieve decisive outcomes across the full spectrum 
of operations. It is characterized by strategic agility, mobility, 
speed, survivability, lethality, sustainability, and network enabled 
situation awareness and connectivity. Recent operations validate that 
the Army either possesses the right capabilities, or is developing the 
right capabilities and capacities, to complement and balance the joint 
force. The Army is forward looking--a ``learning'' and adaptive 
organization that is focused on producing future capabilities to 
support Joint Force Commanders. Army capabilities ensure tactical and 
operational networked interoperability with the U.S. Marine Corps, as 
well as the interdependence on seamless air and naval fires and joint 
close air support. Army logistics systems have and will continue to 
provide superb campaign quality support to multiple services. Our 
future force combat systems are being designed to maximize 
interdependencies and interoperability requirements based on lessons 
learned and future operating concepts developed by the Joint Planning 
Community. Army systems and capabilities will enable us to seamlessly 
integrate with other Services to address traditional, irregular, 
catastrophic, and disruptive threats to our Nation and achieve desired 
outcomes.
    Our modular formations provide the joint force with the right mix 
of light, medium and heavy Brigade Combat Teams (BCTs) as well as the 
key enabling forces. The Army will also continue to invest heavily in 
Special Forces, and is aggressively providing these forces today to 
joint commanders for worldwide employment. Army transformation improves 
the capabilities of soldiers engaged in the long war against terrorism 
and improves the capability of the joint force to defend the homeland, 
deter conflict in critical regions, respond promptly to small-scale 
contingencies, and swiftly defeat the enemy in major combat 
operations--all designed to support the needs of the combatant 
commanders and our Nation.

                         JOINT EXPERIMENTATION

    Question. The Army has conducted a wide range of experiments to 
identify the path forward toward a digitized force, but has done much 
less with regard to transformation to the Objective Force. In the arena 
of joint experimentation, while the Army has participated in a few 
joint experimentation activities over the last couple years, it is 
clear that more joint experimentation is necessary to meet future 
operational challenges.
    What is your view of the need for joint experimentation and how do 
you see the Army participating in future joint experimentation 
activities as we move further into the 21st century?
    Answer. There is no question as to the need for joint 
experimentation; our National Security Strategy clearly establishes our 
method of employing coherently joint forces to achieve our security 
objectives. The Army fully engages with the U.S. Joint Forces Command 
(JFCOM) in the planning, development, execution, and assessment of 
experiments--examples include the cosponsored Unified Quest wargame as 
well as the Urban Resolve series of experiments. In the latter case, 
the Army recently embedded our major annual concept development 
experiment--Omni Fusion--within JFCOM's Urban Resolve experiment. We 
also devote significant effort to conduct even our smaller scale 
experiments with a robust joint context. The Army also partners with 
JFCOM in the area of interagency and multinational experimentation. In 
support of the latter, we have developed or are developing project 
arrangements with our key multinational partners to enable full 
participation in our experimentation programs.
    Question. Do you believe that Army experimentation has been 
sufficient in support of transformation to the Objective Force?
    Answer. Yes, the Army has conducted a great deal of experimentation 
over the last several years. These include: technical prototype 
experiments such as the C\4\ISR On the Move Test Bed annual experiments 
and a vast array of Advanced Concept Technology Demonstrations; field 
experiments such as the Air Assault Expeditionary Force and those 
conducted by the Unit of Action Maneuver Battle Lab; large scale live, 
virtual, and constructive experiments, specifically, the annual OMNI 
Fusion experiments. The Army continues to increase its experimentation 
capabilities as we stand up our latest experimentation asset, the Army 
Evaluation Task Force, which will be available for conducting future 
FCS experiments.

                            MISSILE DEFENSE

    Question. Do you consider missile defense to be one of the Army's 
core missions?
    Answer. Yes, I consider missile defense to be one of the Army's 
core missions and competencies--as it has been for 51 years. As the 
world's preeminent land power, providing land-based missile defense to 
the homeland, our deployed forces, and our friends and allies is an 
essential core capability the Army provides our Nation. It supports the 
President's direction in NSPD-23. The Army presently operates two 
ballistic missile defense capabilities--the Patriot Advance Capability-
3 system and the Ground-based Midcourse Defense system--and we will 
continue to expand our role as additional capabilities are deployed 
such as the Theater High-Altitude Area Defense system.
    Question. What is your view of the proper relationship between the 
Army and the Missile Defense Agency (MDA)?
    Answer. I view the relationship between the Army and the MDA as a 
critical partnership in a unique mission area in the defense of our 
Nation. The Army, through our Strategic Command (STRATCOM) Army Service 
Component Command, and in coordination with STRATCOM, plays a key role 
in representing the warfighters' missile defense required capabilities 
to the MDA. This input helps to define and frame the missile defense 
capabilities that the defense of our homeland, our deployed forces, our 
friends, and allies require. In general, the MDA should be a supporting 
agency to each of the Services.
    Question. What do you think the Army's responsibilities are or 
should be with respect to development, procurement, and operation of 
missile defense systems?
    Answer. The Army provides land warfighting capabilities, including 
force and asset protection, to the combatant commanders. These enduring 
responsibilities result in the Army serving as a principal contributor 
to the development, procurement, doctrine, operational integration, 
execution, and assessment of land-based missile defense capabilities. 
The Army has a strong history over the past half century of assisting 
in the development of missile defense technologies and systems 
including the current Exoatmospheric Kill Vehicle (EKV) used as the 
interceptor on the currently fielded Ground-Based Interceptors (GBIs) 
and the Multiple-Kill Vehicle that will replace the EKV on the GBIs 
when fielded.

                      MILITARY OPERATIONS IN IRAQ

    Question. What do you consider to be the most significant mistakes 
the U.S. has made to date in Iraq?
    Answer. As articulated by the President of the United States, there 
are a number of areas that did not turn out as envisioned.
    Question. There was the feeling that Iraqi elections would bring a 
sense of nationalism for all of the population and would bring the 
Iraqi's together. Unfortunately, the results seem to have promoted 
increased sectarian divisions within the country instead.
    We underestimated the ability of al Qaeda in Iraq (AQI) and Sunni 
insurgents to provoke sectarian conflict and failed to preempt the 
attack against the Golden Mosque in Samarra.
    We thought that as more Iraqi security forces (ISFs) were trained 
and equipped, we would be able to gradually shift ever increasing 
security responsibilities to them and thus reduce our forces 
proportionately. This is occurring slower than we originally projected.
    We were slow to anticipate the extent of the radical Shia death 
squads.
    We did not have enough Iraqi and coalition forces to continue to 
secure neighborhoods that had been previously cleared of terrorists and 
insurgents.
    We allowed too many restrictions to be placed upon our forces.
    Which are still having an impact?
    Answer. The impact focused efforts by both Shia death squads and 
AQI and Sunni insurgents to provoke sectarian violence is still being 
felt in the greater Baghdad area. The Prime Minister's recent 
commitments to provide additional ISFs, enforce the law against all 
violators, not to allow safe havens, and to eliminate political 
interference should ensure the conditions exist to successfully provide 
security for the capital while reducing sectarian violence.
    Question. You have said that 20th century counterinsurgency efforts 
typically lasted 9 years.
    Do you believe the counterinsurgency campaign in Iraq could last as 
long as 9 years? Could it last even longer?
    Answer. Counterinsurgency is an extremely complex form of warfare 
that, at its core, is a struggle for the support of the population. 
Progress is measured by effects, not time. I agree that the 
counterinsurgency campaign in Iraq will continue for some time.

                    ``SURGE'' OF U.S. TROOPS IN IRAQ

    Question. What is your best estimate of how much the surge in 
troops the President has proposed is going to cost the Army during 
fiscal year 2007?
    Answer. I understand that Army commands and supporting agencies are 
working now to refine initial estimates. Several major factors are 
still in play, including additional equipment requirements and final 
determination of the support force mix, that may be needed to support 
additional combat brigades. It will also be necessary to augment 
theater support capabilities to provide for the increased Army and 
Marine Corps presence.
    Question. Can the Army deploy an additional five brigades to Iraq 
with only about 21,000 additional people, or will additional military, 
civilian, or contractor support personnel be required on top of the 
direct increase of 21,000 military personnel?
    Answer. BCTs are designed to deploy and join an existing command 
and control structure already established for employment in a theater 
of war. This is the case with the five BCTs committed for the force 
increase in Iraq. However, given the nature of the counterinsurgency 
mission, there are certain additional combat support and combat service 
support capabilities required to enable fully the commitment of the 
additional brigades. These capabilities include logistical enablers, 
intelligence assets, military police, and a command/control node. Based 
on the current mature base of support already in theater, additional 
civilian and contractor personnel required should be minimal.
    Question. Given the Army's state of readiness, how long do you 
believe the increased troop levels and operations tempo can be 
sustained?
    Answer. Over the past 4 years the troop levels in Iraq have varied 
based on conditions on the ground, and we have experienced surge 
periods before. In December 2004, 20 BCTs provided enhanced security 
for national elections and again in November 2005, when 19 BCTs enabled 
the final round of national elections. The current effort to provide 
five additional BCTs and enablers from the Army represents an 
additional conditions-based force increase. This effort cannot be 
indefinitely sustained without increased resources and policy support.
    Question. Have you done any planning for the redeployment from Iraq 
of U.S. forces beyond the surge?
    Answer. I believe the Army can sustain the increased force levels 
in Iraq through the remainder of this fiscal year. We've extended 
several units in Iraq beyond their scheduled rotation dates and we've 
returned units to Iraq with less than 12 months at home station in 
order to meet the requirements on the ground. However, this pace exacts 
a toll on the force--on equipment, on soldiers, and on their families. 
As the President announced, an end strength increase will help; we'll 
be able to field additional BCTs over time. Additionally, we'll 
continually review and adjust our force generation model to ensure no 
soldier deploys without the proper training and equipment. The Reserve 
component (RC) is invaluable as a part of the total force, and I 
believe recent policy changes on mobilization timelines will also 
enhance overall readiness.
    Question. What are the stages you would envision in such a 
redeployment?
    Answer. When conditions permit and requirements call for fewer 
BCTs, we would adjust the force flow to redeploy those units whose 
tours had been extended, while meeting BOG durations (of 1 year) for 
other deployed units. We would also support dwell times (of 1 year) for 
units available to deploy from continental United States (CONUS) back 
into Iraq. I would additionally make a priority of either keeping a 
brigade in a Reserve status in Kuwait or keeping a brigade in a 
heightened alert status, prepared to deploy from CONUS, which would 
give the commander the flexibility needed to address an unexpected 
escalation of violence. If the requirement for fewer brigades came to 
pass, we would redeploy forces, or hold forces in CONUS, until we 
achieved the required number of brigades needed in Iraq. We would also 
reduce in an appropriate manner combat support, combat service support, 
headquarters strengths, and contractors. We would shrink our basing 
footprint to meet the needs of the operational commander. All of this 
would be a deliberate process synchronized with the transfer of 
security responsibility to the Iraqis.
    Question. In testimony on January 23, Lieutenant General David 
Petraeus, nominated to become Commander, Multi-National Force-Iraq, 
said that he would prefer to accelerate the flow of the five additional 
combat brigades to Iraq as quickly as possible. The current plan calls 
for the deployment of roughly one brigade per month through May.
    Do you believe that this acceleration of the flow is practicable? 
By how much can it reasonably be accelerated?
    Answer. The Army has rotated forces into the Central Command 
(CENTCOM) area of responsibility (AOR) for the past 5 years. 
Infrastructure and procedures in the AOR, enhanced over time, enable 
the timely deployment of forces. The Army continuously plans force 
rotation and prepares next to deploy forces. As such, the BCTs 
designated to deploy this spring have been preparing for the past 8 to 
10 months and are approaching full mission readiness. Accelerating the 
deployment of these BCTs decreases preparation and training time by 45 
to 60 days. As we accelerate, we will not send soldiers without proper 
training and the best equipment possible. Even with the short timeframe 
to execute this mission, the Army will be able to execute this 
reinforcement; and all of the BCTs will receive required training and 
equipment prior to employment in theater. Further, no accelerated BCT 
will fall below a 1:1 deployment to dwell ratio. The current schedule 
of accelerated deployments is feasible and the Army today is on track 
to meet the required arrival dates established by the theater commander 
for all four remaining BCTs. The theater commander will decide on any 
new requirement to further accelerate the force flow. The current plan 
of deployments represents the most practicable acceleration. The lead 
time required to provide each BCT with an appropriate mission rehearsal 
exercise (MRE) precludes deploying faster without increasing risk. U.S. 
Army Forces Command continues to refine training and equipping 
schedules to maximize unit readiness for deployment and 
counterinsurgency operations.
    Question. What are the most acute manning, training, equipping, and 
transportation problems that you see in trying to accelerate the 
deployment of all five brigades?
    Answer. All five BCTs will deploy manned, trained, and equipped to 
perform their mission. The Army will not deploy any BCTs that are not 
ready for combat. The Army will deploy all five brigades fully manned. 
All five BCTs will be trained to perform their assigned mission. The 
greatest training challenge is available training time prior to 
deployment. The Army is accelerating the execution of some of the MREs. 
The Army will use a combination of organic unit equipment, TPE, APS 
stocks, and cross-leveling to equip the deploying BCTs. All will be 
equipped to perform their mission before they enter Iraq. The most 
acute equipping challenge is add-on armor for medium and heavy tactical 
wheeled vehicles. Units will cross-level as an interim solution until 
new production can fill the complete requirement. If I am confirmed, I 
will work to ensure that no soldier deploys to Iraq without adequate 
force protection equipment. The increased demand for operational 
equipment will have a longer-term impact on the Army's equipment 
retrograde and reset program.
    Question. In your view, could accelerating the ``surge'' of forces 
reduce our leverage with the Iraqi leaders to keep their military, 
political, and economic commitments?
    Answer. No, it should not. The Government of Iraq is eager to 
assume greater security responsibility from the coalition and 
understands the need to make military, political, and economic gains 
during this period to maintain positive momentum and continue the 
decrease in violence. The increased flexibility to support Iraqi led 
stability operations provided by the increased force level of U.S. 
forces can help establish the conditions necessary for the political 
process to go forward.
    Question. Do you believe that quelling the current level of 
violence is a necessary condition for a political solution in Iraq?
    Answer. Reducing the levels of sectarian violence in the capital is 
key to our efforts to stabilize Iraq. The central challenge facing us 
is how we can best apply all of the elements of power to break the 
cycle of sectarian violence; this must be resolved for us to succeed. 
Reduction in violence will set the conditions for reconciliation to 
occur which will, in turn, set the stage for transition of security 
responsibility to the Government of Iraq and the adaptation of 
coalition presence within the country.
    Question. Do you believe that it is feasible for current and 
projected U.S. forces in Iraq, in conjunction with available Iraqi 
forces, to achieve this objective?
    Answer. I believe this plan can work. I believe the ISFs, in 
conjunction with U.S forces assistance, can achieve stability in Iraq. 
The increase in U.S. forces is a key piece of our new strategy to 
secure Baghdad. These additional forces will work alongside the ISF to 
help the Iraqis secure neighborhoods, protect the local population, and 
ensure that the Iraqi forces left behind are capable of providing the 
security that Baghdad needs for recovery and reconciliation. 
Additionally, Prime Minister Maliki has given us his pledge that 
political or sectarian interference will not limit Iraqi and American 
forces in pursuing all those who break the law.

                         IRAQI SECURITY FORCES

    Question. For more than 2 years, you have served as Commander, 
Multi-National Forces-Iraq. Prime Minister Maliki asserted that U.S. 
refusal to provide the ISFs with weapons and equipment hurt their 
ability to secure Baghdad.
    Do you agree with the Prime Minister's assertion?
    Answer. No, and we have recently briefed him on the status of 
equipping his forces. We've entered into an agreement on the size, 
equipment, and capabilities of the ISF with each of Iraq's three 
governments and met the obligations consistent with those agreements. 
We have adequately trained and equipped a 325,000-man security force 
which I believe will become capable of defending Iraq from internal 
threats.
    Question. What is your view of the state of training and equipping 
of ISFs and whether they have what they need to meet the military 
commitments of the Iraqi leaders?
    Answer. The objective counterinsurgency and civil security forces 
are adequately sized, balanced, and equipped to counter Iraq's internal 
threat with our support. With continued training and experience they 
will be capable of independent counterinsurgency operations.
    Question. What concerns, if any, do you have about the ability of 
those units to participate in the execution of the new Baghdad security 
plan?
    Answer. The ISF have demonstrated their increasing capability at 
the tactical level; however, the synchronization of unit movements, the 
application of enablers such as aviation and intelligence systems, and 
the ability to work the full spectrum required to include civil-
military operations require additional training. I remain concerned 
about the reliability of some of the local and national police. We will 
watch them carefully.
    Question. The Iraqi government has agreed to send an additional 
three Iraqi Army brigades to Baghdad, two of which will apparently be 
predominately Kurdish.
    What is your understanding of why Kurdish units were selected?
    Answer. The forces assigned to each/any operational area, including 
Baghdad, are determined by a deliberate planning/estimate process. The 
level of forces currently identified for operations in Baghdad are 
assessed as being what is required for the tasks, when balanced, 
militarily and politically, against the need for forces elsewhere 
within Iraq. This decision is made by the Prime Minister (and Commander 
in Chief) informed by his principal advisors; both Iraqi and coalition.
    Question. Do you believe that these units have a greater loyalty to 
the central government than other units?
    Answer. I believe these units are loyal to the central government.
    Question. How do you believe Sunni or Shia Arabs are likely to 
react to Kurdish troops in their neighborhoods?
    Answer. All parties will accept the use of Kurdish forces. In the 
end, if stability is enhanced, the central government will be seen as 
providing a secure environment, and this is what all sides desire.
    Question. How do you believe the Mahdi Army is likely to react to 
Kurdish troops entering Sadr City?
    Answer. It is not clear Kurdish units will enter Sadr City as part 
of the Baghdad security plan. If they were to do so, the reaction in 
Sadr City would likely vary, depending upon the perception of the 
mission, size and composition of forces used, duration of operations, 
and reaction to the political situation of the moment.
    Question. What is your understanding of where Iraqi brigades that 
are predominantly Sunni or Shia are likely to be deployed--among their 
own sect or the other? What do you see as the implications either way?
    Answer. The forces that will be employed in Baghdad are a mixture 
of ethnic groups and religious sects. It is one of the tenets of the 
Baghdad security plan that ISF in general must gain the trust and 
confidence of the Iraqi people. Therefore, it is the intention of 
Lieutenant Aboud to intermingle all components of the ISF so that 
together they can be seen as a positive force in providing security.
    Question. The performance of the Iraqi government has been uneven. 
The new way forward calls for the ISFs to do more, especially in 
Baghdad.
    Are you personally confident that the ISFs can meet this challenge?
    Answer. I believe the ISF can meet this challenge with our support.
    Question. Do you believe Prime Minister Maliki can achieve the 
benchmarks that the President has discussed? Have you seen those 
benchmarks? If so, please describe them for the committee?
    Answer. I believe that Prime Minister Maliki will sincerely and 
aggressively try to achieve the benchmarks. He has also made 
commitments to ensure the ISF and coalition have the freedoms of action 
and authority to accomplish their mission.

          1. Military commander given all authorities to execute his 
        plan.
          2. No political interference in security.
          3. No militia controlling local security.
          4. Even handed enforcement of the law.
          5. No safe havens.

    Question. In October 2006, the Special Inspector General for Iraqi 
Reconstruction released three reports. One found that nearly one of 
every 25 weapons the U.S. military bought for ISFs was missing. A 
second report found that ``significant challenges remain that put at 
risk'' the U.S. military's goal of transferring all logistics 
operations to the Iraqi defense ministry by the end of 2007.
    Are you familiar with these reports?
    Answer. Yes.
    Question. What actions if any have you taken in response to their 
findings?
    Answer. We have had a very positive and productive relationship 
with many organizations that have helped us assess the status of the 
train and equip mission to include the Government Accountability 
Office, SIGIR, and DOD Inspector General. In every case, the 
recommendations of these groups have been acted upon, and 
accountability continues to improve. We believe that it is both our 
aspiration and the aspiration of the MoD and MoI to be largely self-
reliant in logistics by the end of 2007 and the 2007 ISF budget is 
adequate to the task; however, our ability to achieve that is assessed 
monthly and adapted as necessary.

                       U.S. OPERATIONS WITH ISFS

    Question. What is your understanding of the command and control 
relationships between American and Iraqi forces in the new Baghdad 
security plan?
    Answer. U.S. forces will operate under U.S. command and support ISF 
operations in each of the nine districts of Baghdad. They will work 
closely with the sector brigade commander who will have command of all 
ISFs in that sector.
    Question. Do you have any concerns about these relationships?
    Answer. I believe these relationships are adequate but will require 
close coordination and liaison. The fact that the majority of forces 
operating in Baghdad have been working together for sometime should 
assist these relationships. In order to mitigate against potential 
problems close liaison will be required at all levels of command.
    Question. The new Baghdad security plan apparently envisions 
American units being co-located with Iraqi units spread out over 
approximately 30 mini-bases throughout Baghdad.
    What is your understanding of how those forces and the forces which 
will have to resupply them on a daily basis will be protected?
    Answer. Under the Baghdad security plan, coalition forces will 
establish Joint Security Stations with the Iraqi Army, Iraqi Police, 
and the Iraqi National Police. The stations are strategically 
positioned throughout the city to accommodate dispersed, joint patrols, 
and to provide a CENTCOM and control hub. The establishment of Joint 
Security Stations includes enhancing force protection and developing 
essential sustainment and life support packages at each Joint Security 
Station. Many of the Joint Security Stations are located at existing 
Iraqi Police Stations. Force protection enhancements will include 
improvements such as entry control points, external barriers to 
redirect traffic flows and/or reinforce perimeters, increased 
protection from indirect fires, and guard posts/towers where required.
    Question. What changes, if any, would you recommend in the size, 
structure, number, or operating procedures for U.S. forces embedded 
with ISFs?
    Answer. There is unquestionable linkage between ISF progression and 
the embedded Transition Team program. The current Transition Team size 
is insufficient to permit an optimum level of advisement to their 
respective ISF unit. In recognition of this, Multi-National Forces-Iraq 
has initiated the enhancement of transition teams to increase their 
effectiveness while balancing other operational requirements. Based on 
conditions within each MND's AOR, primarily relating to the levels of 
violence and ISF capacity for independent operations, transition teams 
are undergoing enhancement.

                    THE MILITIAS AND THE INSURGENTS

    Question. What are your views on how the Iraqi government should 
confront the militias?
    Answer. There are numerous militias in Iraq; each has its own goals 
and motivations. The Iraqi government must make clear that armed groups 
operating outside the law will not be tolerated. As some militia 
members will not be interested in reconciling with the Iraqi 
government, the ISFs will have to deal with them militarily or treat 
them as criminal elements. In order to deal effectively with these 
illegal armed groups, the Iraqi government should also engage in 
substantive dialogue with militia leaders in order to identify their 
motivations and concerns. The Iraqi government must also provide for 
militia members in order that they might support their families while 
being fully reintegrated into civil society.
    Question. Do you believe that the Iraqi government is likely to do 
so in a timely manner?
    Answer. The Iraqi government is already confronting militias in 
order to curtail sectarian violence. As ISFs gain strength and 
confidence, their ability to confront the militias will improve as 
well. Success against one group could have a cascading positive effect, 
and place additional pressure on other illegal armed groups to 
terminate hostilities. However, success against militias will not be 
achieved on our timetable, but on Iraq's.
    Question. How effective do you believe the addition of more U.S. 
troops will be in securing Baghdad if the Iraqi government fails to 
take effective, timely action to confront the militias?
    Answer. Absent a concerted effort by the Iraqi government to 
curtail militia activity, an increase in U.S. troop strength may reduce 
sectarian violence in the short-term, but at the cost of increased 
attacks against coalition forces and reduced confidence in the 
capabilities and trustworthiness of the ISFs.
    Question. There have been some recent news reports that the Shiite 
political elite are advising Moqtada al Sadr to ``lay low''--much as 
was done after confrontations with the U.S. military in Najaf in 2004, 
and that he and his militia are heeding that call. The fear is that 
they will simply re-emerge after the so-called surge of U.S. troops is 
over.
    Do you believe this is a real concern, and if so, what should be 
done about it?
    Answer. Shia political and religious leaders are advising Muqtada 
al-Sadr to rein in his militia and play a constructive role in the 
political process. These warnings are coming from individuals Sadr 
respects--and who themselves have concluded past mistakes should not be 
repeated. Furthermore, we have seen what we assess to be a qualitative 
difference in the Iraqi government's willingness to take on extremist 
elements--including al-Sadr's militia.
    A situation where al-Sadr's militia attempted to resurge after 
``laying low'' would clearly present a challenge the Iraqi government 
would need to confront, which is why our current operations must focus 
on having the ISF emerge as the dominant security force in he country.
    Question. What are your views on whether American troops should 
enter Sadr City, and if so, under what circumstances?
    Answer. If we are to provide security for the people of Iraq it is 
important that we do not allow safe havens for militias or terrorists. 
As a result American troops already regularly enter Sadr City when 
operational needs dictate it. I expect this to continue in the future 
and anticipate that, as further progress is made, American troops will 
be stationed in Sadr City alongside Iraqi Army and Iraqi NP units.
    Question. How do you believe the Madhi Army or the Iraqi residents 
of Sadr City would react to American troops entering Sadr City and 
staying there?
    Answer. American troops already enter Sadr City regularly in 
response to operational needs, which is likely to continue. The Mahdi 
Army largely follows Muqtada al-Sadr's current public directives to 
refrain from directly engaging coalition forces entering Sadr City or 
other predominately Shia neighborhoods in Baghdad. Though we are still 
assessing the sincerity of recent statements by Sadr City leaders 
supporting the Baghdad security plan, it is a positive sign residents 
are willing to work with the Iraqi government to improve their 
security.
    Question. Do you expect to see Sunni insurgents and Shia militia 
members leaving Baghdad as a result of increased U.S. and Iraqi troop 
presence?
    Answer. We are already seeing it. Sunni extremists such as AQI will 
likely replicate their response to previous security operations. Their 
leadership is likely to relocate outside the immediate area of Baghdad 
to areas northwest and south of Baghdad, leaving lower level fighters 
in the city to continue high-profile attacks when and where possible 
against civilians, Shia militias, ISFs, and coalition forces. Sunni 
resistance fighters are locally based and will attempt to go to ground 
within their general areas, preparing for future operations following 
coalition forces departure. We have seen numerous indications Shia 
militia leaders will leave, or have already left, Sadr City to avoid 
capture by Iraqi and coalition security forces. The effectiveness of 
recent detainment operations is likely causing these actions.
    Question. If so, do you believe that this could this result in a 
higher level of violence in the rest of the country?
    Answer. Robust security operations in Baghdad and a resulting 
movement of antagonists and weapons into the Baghdad belt areas could 
result in heightened levels of confrontation in these urban belts. It 
is unlikely the limited displacement of insurgents and Shia militia 
from Baghdad will cause a significant increase in violence in other 
areas of Iraq. Baghdad is the center of gravity. The movement of 
fighters to foment violence in other areas would diminish capabilities 
focused on the central struggle. However, to mitigate pressure on 
militias and extremists in Baghdad and the surrounding areas, other 
elements within these organizations may increase attacks along the 
southern lines of communications.
    Question. What are your views on how we should address that 
possibility?
    Answer. This is an operational consideration that is addressed in 
contingency planning prior to commencing operations. Since any 
significant increase in violence is unlikely to spread beyond the areas 
surrounding Baghdad, the key is to control lines of communications into 
and out of Baghdad and as well as to secure the main supply routes, 
especially those to the south. Increased use of Iraqi Army and national 
police to protect the lines of communications and establishment of 
regional reaction forces to respond to threats external to Baghdad are 
prudent measures to implement. A number of other options could be used 
to counter the dispersion of violence to areas surrounding the city. 
These include exerting positive control over entry-exit points and 
increased patrolling and intelligence collection in areas of concern.

                             STRATEGIC RISK

    Question. Do you believe that the extended pace and scope of 
operations in Iraq and Afghanistan create higher levels of strategic 
risk for the United States based on the availability of trained and 
ready forces for other contingencies?
    Answer. A fundamental challenge impacting Army readiness and 
strategic depth is the need to establish a proper balance between 
strategy and resources. Current demands exceed the strategy outlined in 
the Quadrennial Defense Review (QDR) and exceed the resources provided 
to execute the QDR-based strategy. While the U.S. Army can still meet 
its commitments in support of approved contingency plans, our concern 
is with our capacity to provide sufficient next to deploy forces 
capable of surging to meet other contingency requirements as they arise 
and to deter potential aggressors. The immediate challenge lies in the 
readiness of these currently non-deployed, next to deploy forces. The 
Army's requirements, particularly to reset, recapitalize, and replace 
damaged equipment must be fully funded to restore the strategic depth 
of our Army necessary to respond decisively to potential strategic 
contingencies. Full, timely, and predictable funding is critical for 
the Army to sustain the growing global commitments of our force. The 
recent decision to grow our ground forces and to assure access to the 
Reserve component will increase the strategic depth to sustain the high 
levels of demand for Army forces. The size of our Army has a deterrent 
effect on potential enemies.
    If so, how would you characterize the increase in strategic risk in 
terms of the Army's ability to mobilize, deploy, and employ a force for 
a new contingency? In your view, is this level of risk acceptable?
    Answer. The current pace of operations has reduced the time between 
deployments, exacerbated equipment shortfalls that impact nondeployed 
forces and pre-positioned stocks, and degraded training for full 
spectrum operations. Currently, Army units focus their training on 
preparing for counterinsurgency operations. To meet combatant 
commander's immediate wartime needs, the Army is pooling equipment from 
across the force to equip soldiers deploying into harm's way. This 
practice continues today, increasing risk to our next to deploy forces 
and limits our ability to respond to emerging strategic contingencies. 
The Army continues efforts to operationalize the Reserve component, 
which includes a large portion of the Army's key enabling capabilities, 
to improve our ability to respond to new contingencies. Fully and 
continuously integrating the Reserve and National Guard balanced 
capabilities into ongoing operations is critical to our effectiveness 
and enhances the readiness of non-deployed forces by allowing more time 
to reset, re-equip, and conduct full spectrum training in order to be 
prepared for contingency operations at home and abroad. The Department 
is updating Reserve governance and employment policies in accordance 
with the Secretary of Defense's new mobilization policy, to allow for 
greater access to these forces. These policy goals include managing 
mobilization on a unit, instead of an individual, basis. The recently 
completed Chairman's Risk Assessment provides specific detail to the 
strategic risk of the military in meeting the National Military 
Strategy and risk mitigation efforts.
    Question. What is the impact of the decision to increase Army 
forces committed to Iraq on our ability to meet our security 
obligations in other parts of the world?
    Answer. Increasing force commitment to Iraq does have an impact on 
our capabilities. However, that the Army still has combat capability 
and will meet its obligations, clearly, we must plan for and address 
future challenges in this dangerous and uncertain time. I agree with 
General Schoomaker's concern about our strategic depth and assessment 
against many of our contingency plans--it could take longer to execute 
some of those plans in terms of the timelines that are expected. In 
such cases, joint capabilities will mitigate those ground force 
capabilities delayed by the force generation timelines. The approved 
increase in Army end strength, though not a near-term solution, will 
help restore this capacity and provide us with a deterrent capability. 
It should also be noted that the enemies that we face are not ours 
alone, they threaten many others as well. As such, the Army and the DOD 
are working hard to build the security capacity of willing partners, 
through its security cooperation efforts, which in the long-term should 
enable regional deterrence and greater self defense.
    Question. How and over what period of time, in your view, will 
increases to Army end strength reduce or mitigate this risk?
    Answer. I would refer you to the Chairman's Risk Assessment for the 
specifics which are classified. However, as has been publicly 
announced, the recent decisions by the President and Secretary of 
Defense to grow our ground forces and to assure access to all 
components of our force will help to establish the balanced inventory 
required to meet and sustain demand for Army forces. It will require 
time and resources to man, train, and equip this force. We must 
continue to leverage through building partnership capacity and security 
cooperation efforts, the development of the security capacity of our 
global partners. The current plan calls for increasing the size of the 
Active Army. The complete benefit of this growth will not be realized 
until the 2012 timeframe. The Army plans to increase both BCTs and key 
enabling units in our Active component (AC), Army National Guard, and 
Army Reserve. This growth will expand our rotational pool to 76 BCTs 
and more than 200 enabling organizations in the operational force of 
the total Army. Our goal is to provide a continuous supply of BCTs to 
meet approved global commitments. Our immediate challenge lies in the 
readiness of the next to deploy and surge forces. Generating whole, 
cohesive units that are fully manned, trained, and equipped will ensure 
that they are fully ready for the strategic and operational demands of 
the combatant commander. This will require a national commitment to 
sustain predictable resourcing over time and to build our force in a 
balanced, coordinated fashion while providing adequately for the needs 
of our All-Volunteer soldiers and their families.
    Question. What additional actions, in your view, are necessary to 
reduce or mitigate this strategic risk?
    Answer. Congressional support for increased total obligation 
authority for the Army and timely wartime supplemental funding remain 
key elements of reducing strategic risk. Expansion of the Army, 
continued transformation, assured access to the Reserve components, 
recapitalization, and increased funding are some of the key means 
essential to reducing overall strategic risk. We must be able to 
harness the other elements of national power to shape the strategic 
environment and reduce the likelihood of crisis. Fully resourcing our 
security cooperation activities, increasing the security capacity of 
strategic partners, strengthening our unity of effort within our 
interagency, and improving and increasing our Nation's expeditionary 
advisory and assistance capabilities are also essential to mitigate 
strategic risk.

                       ROTATION CYCLES/SCHEDULES

    Question. The Active Army's ratio of time spent deployed to time at 
home station is already approaching 1:1--that is for each year deployed 
a soldier spends 1 year at home station. The Active Army objective is 
1:2 where soldiers can expect to be home for 2 years for each year 
deployed. The Reserve component objective is 1.5 where soldiers can 
expect to be home for 5 years for each year deployed. Despite the 
desired deployed to ``dwell'' ratio, the increase in forces committed 
to Iraq is likely to drive this ratio even higher.
    What impact do you expect the proposed troop surge in Iraq to have 
on the so-called ``dwell time'' of Army soldiers? Is it possible that 
this surge could drive the Army past the 1:1 level?
    Answer. Over the past 5 years very few units have not met the 1:1 
ratio between rotations, though the Army minimum goal for Active 
component units at surge is a 1:2 ratio and objective steady state goal 
it is a 1:3 ratio. Currently, most Active component BCTs as well as 
combat support and combat service support are averaging about 1:1. 
Reserve component units have mostly been mobilized only once, so Army 
National Guard and for Army Reserve rotation goals have not been 
exceeded. Ultimately, the decision rests with the theater commander to 
determine his requirements. I understand that the Army is finalizing 
the force rotation set for the rest of this year and for 2008 in order 
to ensure that we continue to provide the required capabilities to the 
combatant commanders. No units in the plus-up will break the 1:1 
rotation level. For the Operation Iraqi Freedom (OIF)/Operation 
Enduring Freedom (OEF) force rotations for fiscal years 2007-2009, the 
recent change in mobilization policy for the Reserve component begins 
to provide to the Army predictable access to required capabilities. 
During the implementation to resume proportional contributions to the 
theater some units, particularly Active component BCTs, certain Active 
component enabling capabilities (military police, engineers, and 
others) and Reserve component military police and engineers, will be 
asked to rotate at a ratio that exceeds policy goals. The Army will 
identify these units as soon as possible in order to maximize time for 
their training, manning, and equipping. The Army will deploy only 
trained and ready units.
    Question. How do you think a deployed to dwell ratio of 1:1 is 
likely to impact the readiness of deployed and non-deployed units?
    Answer. When units redeploy from Iraq and Afghanistan, their reset 
periods at home station are truncated due to the short time before they 
redeploy next. It increases the challenge to ensure units are reset and 
trained for their next deployment equipment and people. Stress is 
increased on soldiers and families.
    Question. What is your assessment of the impact of the decision to 
increase Army end strength on the rotation schedule and how long will 
it take for this impact to make a difference?
    Answer. The decision puts us on a path to enhance the depth and 
breadth of capabilities, yet will require several years, considerable 
resources, and a sustained national commitment to bring it to fruition. 
Although it will not immediately alleviate strategic risk as we assess 
it today, it will better posture us to meet sustained levels of force 
deployment for the long war. If we grow the Army to 547,000 Active/
358,000 ARNG/206,000 USAR; have recurrent, assured access to the 
Reserve component, rotate at surge with the Active component at 1:2 and 
the Reserve component at 1:4 with a 12-month Reserve component 
mobilization (9-month BOG), the Army will be able to generate about the 
same capacity as with today's programmed force by fiscal year 2013.
    Question. How will the proposed surge impact the ability of the 
Army National Guard to respond to homeland security and other disaster 
response missions?
    Answer. It is my belief that the surge will not materially impact 
on the ability of the Army National Guard to respond to missions here 
at home. The surge is composed primarily of Active component units. One 
National Guard BCT (1-34th MNARNG) already deployed in theater was 
extended 120 days as part of the surge but will return home this 
August. The Guard will continue to be able to support the Southwest 
Border Mission. The Chief, National Guard Bureau, together with the 
Army leadership, has committed to the goal of having at least 50 
percent of a Governor's National Guard forces available to respond to 
State missions.

                         EQUIPMENT AVAILABILITY

    Question. Both deploying and non-deploying Active component and 
Reserve component Army units are training without all their required 
equipment. Deploying units do not receive some of their equipment until 
late in their pre-deployment training cycle or as they arrive in 
theater.
    In your view, is deploying additional brigades to Iraq likely to 
increase the strain on maintenance systems and further reduce equipment 
availability for training?
    Answer. I would agree that additional brigades will increase 
workload, but we have demonstrated we have the depth of capacity to 
meet requirements. With adequate funding and lead time, we can leverage 
our organic capability, public and private partnerships, and contracts 
to meet these requirements
    Question. Do you believe that the Army has enough equipment to 
fully support the pre-deployment training and operations of surging 
units?
    Answer. The Army's number one priority, and one that I would 
maintain if I am confirmed, is to ensure soldiers going into the 
warfight have the equipment they need. Units will use a combination of 
organic unit equipment, theater provided equipment, Army prepositioned 
stocks, and cross-leveling to equip the deploying BCTs.
    Question. What do you see as the critical equipment shortfalls for 
training and operations?
    Answer. Due to theater requirements, some equipment is unavailable 
for units to train with prior to deployment. The most common shortfall 
occurs with force protection equipment, where equipping solutions are 
developed to meet specific theater threats, and production of these 
items go straight into theater to meet demand.
    Question. In terms of shortfalls for training items, some key 
pieces of equipment include uparmored HMMWVs, engineer route clearing 
equipment, and counter rocket artillery and mortar fire system. In 
terms of shortfalls for operations, all units are fully equipped to 
meet operational demands.
    What steps would you take, if confirmed, to address these 
shortfalls and ensure that units have what they need to train and 
operate?
    Answer. The most important element of ensuring units have what they 
need is ensuring sufficient, predictable, stable funding. Stable and 
predictable budgets that are enacted early with distribution of both 
base and bridge supplemental funding within 30 days of the start of the 
fiscal year allow us to deliver the right equipment, on-time.

                         EQUIPMENT REPAIR/RESET

    Question. Congress provided the Army with $17 billion in fiscal 
year 2007 to help with the reset of non-deployed forces and accelerate 
the repair and replacement of equipment.
    What impact do you expect the increased funding to have on the 
readiness of our ground forces, and how soon do you expect to see this 
impact?
    Answer. Based on what I know now, I believe equipping the force 
will take time. We must fill the historical holes in our force, 
transform the Army, and modernize. The $17.1 billion has a minor impact 
on equipment on hand quantities, and the procurement dollars provided 
pay back the Reserve component for equipment left in theater and to 
replace battle losses. The $17.1 billion has the greatest impact on the 
equipment serviceability status which is realized when depot and field 
level reset is completed during the 180 day reset window for 
redeploying units.
    Further, as the $17.1 billion for reset was available at the 
beginning of the fiscal year, the Army was able to synchronize 
resources, people, and materiel to align with the flow of equipment 
from returning units into the reset process. For instance, timely 
funding has allowed depots to order parts in advance of equipment 
arrival, thus speeding the reset process.
    Question. Is it your understanding that our repair depots are 
operating at full capacity to meet rebuild and repair requirements for 
reset?
    Answer. Executing the $17.1 billion reset program does not exceed 
the maximum capacity of our depots. I understand that the Army's depots 
have the capacity and are on track to execute all funding associated 
with the reset dollars.
    As the $17.1 billion for reset was available at the beginning of 
the fiscal year, the Army was able to synchronize resources, people, 
and materiel to align with the flow of equipment from returning units 
into the reset process. For instance, timely funding has allowed depots 
to order parts in advance of equipment arrival, thus speeding the reset 
process.
    The Army's organic depots have steadily increased their capability 
while simultaneously increasing efficiencies. For example, Red River 
Army Depot, will see work increase from 400 items a month in October 
2006 to 700 a month in September 2007. The Anniston Army Depot will 
increase from 1,000 items a month in October 2006 to 3,000 per month in 
September 2007.
    Question. What additional steps do you believe could be taken to 
increase the Army's capacity to fix its equipment and make it available 
for operations and training?
    Answer. As I indicated previously, I believe that the most 
important element of ensuring units have what they need is ensuring we 
have sufficient, predictable, stable, funding. Stable and predictable 
budgets that are enacted early with distribution of both base and 
bridge supplemental funding within 30 days of the start of the fiscal 
year allow us to deliver the right equipment, on-time. The Army needs 
continued congressional help in passing the 2007 main supplemental 
funding early this spring to properly sustain the Army.
    Question. What impact do you believe the President's proposal to 
send an additional five brigades to Iraq is likely to have on the pool 
of equipment available for non-deployed units to train with at home?
    Answer. The additional brigades will increase the need for 
equipment as units intensify training for deployment. Some of the 
deploying units will take equipment with them which will require the 
Army to realign available equipment for nondeploying units to train 
with. The Army will need to better manage the equipment to ensure 
proper distribution.
    Question. What impact is it likely to have on the ability of Army 
National Guard units to respond to homeland security and disaster 
relief missions?
    Answer. This increase in deployed forces could only affect the Army 
National Guard's ability to respond to homeland security and disaster 
relief missions to the degree that we deploy Army National Guard units. 
I understand that the Army does not plan to transfer any Army National 
Guard equipment to other components. However, as demonstrated with last 
season's hurricane preparedness, the Army can provide necessary 
disaster support through mutual aid compacts, equipment loans, and 
forces from the Active component and Army Reserve components.

                  RESERVE DEPLOYMENT AND MOBILIZATION

    Question. In recent years, Reserve Force management policies and 
systems have been characterized as ``inefficient and rigid'' and 
readiness levels have been adversely affected by equipment stay-behind, 
cross-leveling, and reset policies.
    What are your views about the optimal role for the Reserve 
component forces in meeting combat missions?
    Answer. Today's Strategic Contemporary Operating Environment (COE) 
has mandated a transition of the Reserve components of our Army from a 
Strategic Reserve to an integrated, vital, and resourced Operational 
Force. Since September 11, the Reserve component has been used 
judiciously and prudently in support of the global war on terror, both 
here and abroad, and will continue to help meet the global force 
requirements given the Army.
    Question. What is your opinion about the sufficiency of current 
Reserve Force management policies?
    Answer. The changes in Reserve component mobilization policy will 
facilitate consistent access to Reserve component units. Most 
importantly, these changes will also provide greater predictability of 
deployments for our soldiers, their families, and employers.
    Question. Do you support assigning any support missions exclusively 
to the Reserve?
    Answer. No. The Reserve component will be routinely assigned 
directed missions as part of ARFORGEN. The first days of any conflict 
or contingency response pretty much demands an Active component course 
of action. Support capabilities are needed across both the Active 
components and Reserve components. The distribution of what 
capabilities exist in what components will be the result of carefully 
developed and coordinated plans.

                     LOW DENSITY/HIGH DEMAND FORCES

    Question. In your professional judgment, how would you address the 
Army's management of low density units such as military police, civil 
affairs, and others which are in extremely high demand in this new 
strategic environment?
    Answer. The Army is aggressively rebalancing its formations to 
reduce structure we do not need, mitigate high-demand/low-density 
shortfalls, and redistributing soldiers to increase the size of the 
operating force by reducing the Institutional Army. We've identified 
well over 100,000 of capabilities to rebalance and have already 
rebalanced over 57,000 of that. I understand that the Army plans to 
reduce the Institutional Army from over 104,000 in fiscal year 2003 to 
80,000 by fiscal year 2013. The Army must, however, maintain 
Institutional capacity to generate and sustain the force growth. As a 
result, we've reduced armor, field artillery, and headquarters to grow 
the capabilities that you've identified: infantry, special forces, 
civil affairs, psyops, MPs, MI, engineers. Just as importantly, the 
Army is changing the way it develops leaders and trains soldiers. The 
Army is building pentatheletes who can operate in an ambiguous 
environment and perform a broader range of tasks in addition to their 
core competencies. They are much more culturally aware, the Army has 
emphasized language proficiency, moreover broadening our leader's 
experience through advanced civilian schooling. The cumulative effects 
of this are leaders equally adept at non-kinetic solutions.
    Question. Are there functional changes among the Active components 
and Reserve components that you believe should be made?
    Answer. The Army must continue to balance the force across all 
three components and maintain recurrent, assured access to the 
Reserves. Our Reserve components are now an integral part of our 
operational force. They are organized in modular formations and will be 
manned, trained, and equipped to deploy. I believe our Army is better 
integrated today than we have been for a long time. The Army will 
continue to grow the modular force across all three components to build 
strategic depth; provide rotational capability for steady state levels; 
and bring a campaign quality to our Army that will meet the global 
strategic demands of the long war.

                             ARMY READINESS

    Question. On January 23, General Schoomaker testified before the 
House Armed Services Committee that Army readiness was even worse now 
than it was last June. He said: ``I testified in June that I had 
concerns about the strategic depth of the Army. That was about 7 months 
ago. Since that time, we have increased stress on the Army. We are 
using the supplemental funding to reset the Army as fast as we can but, 
there's latency in delivery. We have it moving very quickly, but the 
delivery is yet to be taken. So my concerns are increased over what 
they were in June, in terms of what the pressure is on our force, both 
in terms of dwell time, in terms of equippage, in terms of time 
available to train and all the rest of it.''
    Do you share General Schoomaker's assessment that Army readiness 
has declined over the past 6 months?
    Answer. Yes, I do. The forces in theater are the best trained, best 
led, and best equipped before crossing the berm to execute the combat 
missions which they have been assigned. However, ensuring units in 
theater are properly resourced and trained has come at the expense of 
those units that are not deployed. To meet the combatant commander's 
immediate needs we have pooled equipment from across the force. 
Although absolutely necessary to support soldiers deploying into harm's 
way, this practice has increased the un-readiness in our next-to-deploy 
forces and limits our ability to respond to emerging strategic 
contingencies. The 2007 supplemental will arrest the decline of the 
readiness in the force that General Schoomaker described. However, 
since that time operational demand has obviously increased and only 
serves to accentuate the fact that operational demand still exceeds 
strategy, which still exceeds resources.
    Question. To what degree would the proposed surge exacerbate the 
readiness problems identified by General Schoomaker?
    Answer. Intuitively, this increase in demand will exacerbate the 
stress on soldiers, leaders, families, and equipment. Any shortfalls 
for units which are deploying will be met using our ``pooling concept'' 
to ensure these units can meet their operational missions. More 
importantly, to actually achieve the surge force levels we must not 
only accelerate the deployment of five BCTs, but must also extend five 
BCTs already in Iraq. Finally, the Army must pull forward the 
deployment of five future BCTs to replace the BCTs that were 
accelerated in the rotation plans.
    Question. Do you believe the current state of Army readiness is 
acceptable?
    Answer. I am concerned that the operational demand continues to 
exceed the QDR strategy and available resources. America's Army remains 
at war and we will be fighting this war for the foreseeable future.
    Question. How do you see the war in Iraq and operations in 
Afghanistan impacting the readiness of Army forces that may be called 
upon to respond to an attack or other incident or disaster inside the 
United States?
    Answer. It is my understanding that the National Guard Bureau, 
working with the Governors and State Adjutants General, have identified 
the baseline equipment requirements so each State's units are capable 
of meeting their homeland defense and homeland security requirements. 
Additionally, the Army leadership has request $20 billion over the 
program to ensure the Army National Guard is properly equipped to 
respond to an attack or other incident or disaster inside the United 
States.

                        PERMANENT BASES IN IRAQ

    Question. Last year's defense authorization and appropriation acts 
prohibited the use of funds to establish permanent bases in Iraq.
    Do you agree with that prohibition, or do you think the United 
States should reserve the right to seek permanent basing of U.S. forces 
in Iraq?
    Answer. Yes, I agree with the Iraq basing prohibition on permanent 
facilities.
    Question. If you agree, what are your views on the construction of 
any additional facilities inside Iraq for use by our military forces?
    Answer. All current U.S. funded facilities and infrastructure for 
coalition forces in Iraq are of temporary construction, as directed by 
CENTCOM policy. It is built to a ``good enough'' standard which I have 
consistently instructed all OIF commands and construction agents to 
implement. The plus up of forces may require the construction of 
additional facilities. If necessary, these will be temporary in nature 
and built to the same ``good enough'' standard.

               JOINTNESS OF ARMY-MARINE CORPS OPERATIONS

    Question. For the past several years, the Army and Marine Corps 
have had separate areas of responsibility in Iraq, with Marine forces 
assigned to the Anbar province.
    Do you believe the Army and Marine Corps forces operating in Iraq 
have an appropriate degree of jointness?
    Answer. Unequivocally yes, U.S. and coalition forces are planning 
and conducting joint operations everyday spanning from the platoon to 
MNF-I level throughout Iraq. Fundamental to all military operations is 
a clear delineation of three dimensional boundaries. While the land 
boundaries of MND-W may appear to specify a Marine only operation, I 
assure you they operate jointly incorporating multiple USA BCTs, USAF 
CAS and multiple Service and Interagency Special Operations Forces and 
Information, Surveillance, and Reconnaissance assets.

                         END STRENGTH INCREASES

    Question. The President recently announced the administration's 
intent to increase the Army's end strength by 65,000 soldiers. First, 
the administration intends to make permanent the 30,000 temporary 
increase in end strength now in effect. Second, the administration 
intends to add 35,000 new soldiers over the next 5 years, including an 
additional 6,000 new soldiers in 2007; 7,000 additional new soldiers 
per year through 2011; and 1,000 additional new soldiers in 2012.
    What is your understanding of why the Department is now proposing a 
permanent increase in end strength that it has resisted in the recent 
past?
    Answer. General Schoomaker asked for permission to grow by 30,000 
and Congress supported it. The Army has taken advantage of that 
temporary authority given in National Defense Authorization Act (NDAA) 
for Fiscal Year 2005 to grow its Active Force by 30,000--we are 
currently at 505.4k and are now on a ramp toward 518,000 by the end of 
fiscal year 2007. The Army has received considerable support to execute 
current operations, to reset our forces, to rebalance our components, 
and to build a modular Army. However, the demand has exceeded both the 
``supply'' posited in the strategy, and the resources provided. We will 
need continued support to close the gap between requirements and 
resources, particularly as we maintain an extraordinarily high 
operational pace while growing the Army. The decision by the President 
and the Secretary of Defense to grow the ground forces will build the 
strategic depth and capacity necessary to meet the global demands of 
the long war.
    Question. In your view, are the administration's proposed end 
strength increases achievable in the timeframe stated?
    Answer. Yes. The Army will get to 518,000 in the Active component 
by the end of fiscal year 2007. I understand that the Army will be able 
to meet a recruiting goal of 80,000, and the additional Military 
Occupation Skill goal of over 3,000. The Army will grow by at least 
7,000 each year over the next 5 years on a ramp to achieve an end 
strength of 547,400 by fiscal year 2012.
    Question. Is it your understanding that these increases are 
consistent with the Army's requests?
    Answer. Yes, this end strength increase is consistent with the 
Army's request, particularly with respect to growth in its operating 
force.
    Question. To what extent do you believe the Army will have to rely 
on stop loss to achieve the increases in end strength?
    Answer. The Army does not rely on stop loss to achieve the strength 
increase. We use targeted stop loss to ensure unit cohesiveness in 
combat zones. Approximately 1 percent of the total force is affected by 
stop loss and only for a finite time period. It is my judgment that 
we'll need to rely on targeted stop loss at least in the near-term. I 
understand the Army is currently reviewing its use of stop loss at the 
request of Secretary Gates. The Department's initial assessment is that 
accessions of 1,500 per year will be needed if targeted stop loss is 
terminated.
    Question. Has the Army conducted a comprehensive and forward-
looking assessment of its end strength requirements? If so, please 
describe the assessment, its assumptions, and its conclusions.
    Answer. I am confident that the Army has been and will continue to 
be forward looking in determining its force structure. We have a mature 
analytical process that's based on strategic direction from the 
National Military Strategy, from OSD, and the Joint Staff. It builds 
toward future requirements at the end of the program and beyond. The 
process is adaptive, however, to rebalance capabilities to meet 
operational demands. The underlying assumption was the requirement to 
fight two major combat operations, nearly simultaneously with one a 
win--decisively; and the other a swiftly defeat the effort. During QDR 
it was determined that a force designed to support 70 BCTs was 
sufficient. This enabled the Army to provide 18-19 BCTs per rotation to 
meet global demands.
    The recent assessment by the Joint Staff that the Army's enduring 
requirement to provide up to 23 BCTs to meet strategic, global demand 
requires continued growth to 76 BCTs and the growth of requisite 
combat, combat support, and combat service support units to provide 
operational and strategic flexibility. This capacity is needed to 
sustain the long war.
    Question. What is your understanding of the estimated steady-state 
annual costs of increasing the Army's end strength to 547,400 as 
proposed by the administration?
    Answer. My best estimate is $8.2 billion, which includes both the 
increased cost to military pay and operations and maintenance.
    Question. Historically, increasing operating and personnel costs 
often crowd out spending for modernization programs.
    If confirmed as Chief of Staff, would you be prepared to recommend 
curtailing or cancelling modernization programs to pay for this 
increase in end strength?
    Answer. If I am confirmed, my role as Chief of Staff will be to 
provide ready forces to combatant commanders. Those forces must be 
ready today and in the future. My commitment is to apply my judgment to 
maintain that balance and provide ready forces consistent with 
resources provided.
    Question. If not, where do you anticipate the additional resources 
would come from?
    Answer. If confirmed, my role as Chief of Staff is to provide ready 
forces to combatant commanders. Those forces must be ready today and in 
the future. My commitment is to apply my judgment to maintain that 
balance and provide ready forces consistent with resources provided.
    Question. Do you believe that this end strength increase would 
continue to be needed even if our deployment of troops to Iraq ends or 
is significantly reduced, or do you believe that this increase is 
driven in significant measure by our troop requirements in Iraq?
    Answer. I believe that the end strength increase must continue. The 
future security environment is dangerous and uncertain and the Nation 
must continue support to the long war; increase commitment to security 
cooperation; increase deterrence in key areas of the world; reduce the 
deployment stress on the force; and to fully prepare for future 
challenges. Both the superior capabilities and the size of the force 
combine to enable sustained global engagement, deterrence, and response 
in order to fully protect national interests, prevent aggression, and 
prevail when called upon. The Army Campaign plan to develop and field 
capable units and systems is producing the optimum mix of land 
capabilities for the joint force; it is both affordable and essential 
for the Nation in order to win the war today and prepare for an 
uncertain future. Joint ground forces are proving to be the primary 
military instrument for creating favorable and enduring security 
conditions in many crisis regions around the world. Presence, or BOG, 
sends a message of commitment and intent to our potential adversaries. 
Since 1989, the Army has supported 43 joint operations, many of which 
require a continuous rotation of forces to support our allies and 
attain the desired national strategic effects.
    The Army is on a very much needed acceleration plan to grow six new 
BCTs and enabling organizations in our Active component and other key 
enabling organizations in our Army National Guard and Army Reserve. 
This will expand our rotational pool to 76 BCTs and more than 200 
enabling organizations in the operational force of the total Army. Our 
goal is to provide a continuous supply of BCTs and key enabling 
capabilities to meet approved global commitments. Today, the Nation has 
over 258,000 American soldiers deployed in 89 countries engaged in 
deterrence operations, theater security cooperation, and joint and 
multi-national operations in support of national strategic objectives. 
Joint ground forces bear the heaviest burden fighting simultaneous 
campaigns, primarily in Afghanistan and Iraq. Over 740,000 Active and 
Reserve soldiers have served overseas in support of the Nation's war on 
terrorism. Active component BCTs deploy to combat at a rate of 1 year 
deployed for 1 year training at home station. This accelerated pace of 
deployment is 1 full year faster than the Army's surge goal of 1 year 
deployed for 2 years training at home station and 2 years faster than 
our sustainable steady state rate. We must reduce this stress on the 
force by building our strategic depth. The end strength increase, 
coupled with assured Reserve component access is critical to achieve a 
steady state that affords predictability and sustainable deployment 
effort for our soldiers. Completion of the 76 BCT and 200 plus enabling 
units will provide a sustainable supply of military capabilities that 
meet the requirements of worldwide Joint Force Commanders now and in 
the future.

                               RECRUITING

    Question. The ability of the Army to recruit highly qualified young 
men and women is influenced by many factors and is critical to the 
success of the All-Volunteer Force.
    What do you consider to be the most important elements of 
successful recruiting for the Army?
    Answer. The most important elements for recruiting success are the 
support of the Nation's citizens and Congress in providing the soldiers 
and resources required to maintain our ability to guard our freedom 
against those who desire otherwise. Successful recruiting for the Army 
requires us to recruit qualified men and women in the numbers required 
to man our units.
    Question. What are the Army's recruiting goals for fiscal years 
2007 and 2008? Have these goals been adjusted in light of the increased 
end strength?
    Answer. The recruiting missions for fiscal years 2007 and 2008 will 
remain 80,000. In fiscal year 2007, we have an additional requirement 
to support the acceleration of two BCTs. We anticipate this MOS 
precision requirement will result in a mission over-achievement of 
3,000 to 4,000. Given the current planning assumptions and manpower 
models, these recruiting goals support the increased end strength goal 
for 2012.
    Question. What is your assessment of the Army's ability to reach 
its Active-Duty recruiting goal in fiscal years 2007 and 2008?
    Answer. Recruiting an All-Volunteer Force will continue to be a 
challenge due to high employment rates, the improving economy, the 
decreasing qualified market, and the war. Given continued congressional 
support and funding, however, the Army can achieve the mission.
    Question. Is it your understanding that the Army will have to 
change its enlistment standards to achieve these recruiting goals?
    Answer. The ability to meet and maintain the DOD quality marks (90 
percent HSDG/60 percent Mental Category I-IIIA/<4 percent Category IV) 
in the current and future recruiting market will be the greater 
challenge. The Army has and will continue to implement measures to 
reduce this challenge through programs and policies that lower 
attrition rates, increase the potential market, and utilize creative 
incentives. However, the Army will only enlist soldiers who are 
qualified and volunteer to serve this Nation.
    Question. What is your view about the appropriate assignment and 
overall numbers, if any, of ``Category IV'' recruits in the Army, i.e., 
those individuals who score below the 31st percentile on the Armed 
Forces Qualification Test?
    Answer. As with all recruits, the Army assigns ``Category IV'' 
recruits to military occupational specialties that they are qualified 
to fill. The Category IV issue is a question of ``trainability''. The 
Army has and will continue to implement measures to reduce this 
challenge and prepare all soldiers for future combat and duty 
requirements. These soldiers, when properly trained and led, are fully 
capable of supporting and defending the Nation. I do not see the Army 
exceeding the current DOD standard of 4 percent even though the 
congressional limit is 20 percent.
    Question. What is your understanding of trends in the Army with 
respect to incidents of recruiter sexual misconduct with potential 
recruits?
    Answer. Any recruiter misconduct is unacceptable. Recruiters are 
the first to contact this country's most sacred and precious resource--
the men and women who volunteer to serve in the Armed Forces of this 
great country. Sexual misconduct, with or without consent, is not and 
never has been acceptable. We will continue to take the appropriate 
action against those few who believe that they can use their position 
for personal gain. We have zero tolerance for this type of conduct. The 
recruiting leadership reviews reports of recruiter conduct and 
establishes polices to prevent this and other forms of misconduct
    Question. If confirmed, what actions, if any, would you take to 
prevent such incidents?
    Answer. Sexual misconduct in the recruiting process or in the Army 
is unacceptable--as it is in the rest of American society. For the 
Army, the consequences can be far more damaging to unit effectiveness; 
commanders at all levels through values based education and corrective 
action to enforce the standards. If I am confirmed, I will act to 
implement policies that decrease the possibilities of this type of 
misconduct. I support the use of all processes, administrative and 
judicial, against those who willing choose to commit these acts of 
misconduct.

     MOBILIZATION AND DEMOBILIZATION OF NATIONAL GUARD AND RESERVES

    Question. In the aftermath of the attacks of September 11, 2001, 
the National Guard and Reserves have experienced their largest and most 
sustained employment since World War II. Numerous problems have been 
identified in the past in the planning and procedures for mobilization 
and demobilization, including inadequate health screening and medical 
readiness monitoring, antiquated pay systems, limited transitional 
assistance programs upon demobilization, and medical holdovers.
    What is your assessment of advances made in improving mobilization 
and demobilization procedures, and in what areas do problems still 
exist?
    Answer. Mobilization processes are vastly improved since 2001. The 
Army has automated its mobilization request process. These efforts are 
responsible for alerts/notifications that are occurring 90-180 days in 
advance of mobilization and ensure that individual orders are in the 
hands of soldiers at least 45 days prior to their mobilization date. 
The objective of the Army in ARFORGEN FOC is that units will be alerted 
1 year in advance of possible mobilization. The recent change in 
Reserve component mobilization policy will enable unit versus 
individual mobilization and enhance cohesion. There are now significant 
efforts that are underway to move a great deal of training from a post-
mobilization timeframe to the left of the mobilization date. This will 
require additional training and resources to be made available to 
Reserve component units in the year prior to a potential mobilization.
    Question. What do you consider to be the most significant enduring 
changes to the organization and policies affecting the Reserve 
components aimed at ensuring their readiness for future mobilization 
requirements?
    Answer. A key to success for ensuring our Reserve components are 
ready for future mobilizations is to provide sufficient equipment and 
resources, especially in the year prior to mobilization. With Congress' 
continued assistance, the Army can provide Reserve component forces 
that are in a higher state of readiness upon mobilization to execute 
missions around the world.

                 INDIVIDUAL READY RESERVE RECALL POLICY

    Question. A July 2006 report by the Center for Strategic and 
International Studies (CSIS) recommended that the Army revitalize its 
Individual Ready Reserve (IRR) program by culling existing IRR 
databases and ensuring that the Army has valid contact information on 
IRR members who may be recalled to serve.
    What has the Army done to clarify the mobilization policy that 
applies to both officer and enlisted members of the IRR?
    Answer. The Army's concept plan for increased IRR readiness centers 
on the IRR Transformation Plan which was approved for execution in 
November 2005 by the Secretary of the Army. Programmed initiatives are:

        <bullet> Changing the culture of the IRR,
        <bullet> Managing individual expectations, and
        <bullet> Improving readiness reporting.

    Additionally, the execution of a DOD IRR Decision Point Policy 
mandates the removal, within 2 years, of IRR officers who have 
fulfilled their Military Service Obligation (MSO) unless they 
positively elect to remain in the IRR. To date approximately 4,000 or 
more soldiers have been transferred to the inactive status list and 
ultimately separated. Culling these programmed initiatives and aligning 
the IRR with the Army Force Generation Model--Reset/Train; Ready; 
Available, adds more predictability in mobilization rotations. These 
model enforces positive contact, refresher training as individual 
skills degrade, and ensures the deployable readiness of the IW.
    Question. What has the Army done to update its IRR mobilization 
database?
    Answer. The Army has two primary transformation initiatives which 
are data reconciliation and establishing a control IRR population. 
These initiatives address methods to reset the force by conducting a 
systematic screening of all data records; determine disposition of 
individuals; and process for final resolution those soldiers who no 
longer have further potential for useful military service if mobilized 
by a recommendation for separation. The Human Resources Command 
processed over 17,000 existing bad addresses through a credit bureau 
agency to provide last known addresses of soldiers. Additionally, the 
Human Resources Command has identified non-mobilization assets that 
includes soldiers passed over for promotion, with security violations, 
physical disqualifications, documented hardship, and adverse 
characterizations of service. Where appropriate, these soldiers are 
being separated. Through these efforts the current IRR population of 
82,000 has been reduced by 25 percent and could potentially be reduced 
down to approximately 60,000 soldiers.

                 SUPPORT FOR SEVERELY WOUNDED SOLDIERS

    Question. Improved body armor and combat casualty care have enabled 
many thousands of soldiers to survive wounds received in OIF and OEF. 
As a result far more soldiers survive with injuries which, in previous 
conflicts, would have resulted in death.
    What are your views on the Army's commitment and responsibility for 
severely injured members and their families?
    Answer. Our Army is committed to and accepts the responsibility for 
our severely wounded warriors and their families. In April 2004, the 
Army established the U.S. Army Wounded Warrior (AW2) program. AW2's 
guiding principle is part of our Army's Warrior Ethos, ``I Will Never 
Leave a Fallen Comrade''.
    Wounded warriors who are not part of the AW2 program have access to 
robust resources and an array of support, from our hospitals, the Army 
Career and Alumni Program, Army Emergency Relief, Veterans Affairs, and 
a myriad of community support programs. These great American heroes 
will also benefit from the recently opened Center for the Intrepid at 
Brooke Army Medical Center, Fort Sam Houston, TX.
    Our Army is committed, and I am personally committed, to caring for 
our severely wounded warriors and their families who have sacrificed 
selflessly for our Army and our Nation.
    Question. What suggestions do you have for improving the Army's 
support for severely wounded soldiers?
    Answer. The AW2 program has grown and will continue to expand as 
needed to accommodate our wounded warriors, placing more soldier Family 
Management Specialists in Military Medical Treatment Facilities and 
Veterans Affairs Medical Centers as the need arises. I believe that the 
Army must continue to make this a high priority and if I am confirmed, 
I will work to ensure it is resourced appropriately.
    The AW2 program began with 2 soldier family management specialists 
and now currently has 43 on board. The AW2 program has a soldier family 
management specialist at 16 Veterans Affairs Medical Centers and at 8 
military medical treatment facilities. Two more soldiers family 
management specialists are planned at other military medical treatment 
facilities and five more are planned at additional Veterans Affairs 
Medical Center.
    Question. Section 588 of the NDAA for Fiscal Year 2005 contains a 
provision intended to ensure that other than appropriate medical review 
and physical disability evaluation, there should be no barrier in 
policy or law to an opportunity for a highly motivated member to return 
to Active-Duty following rehabilitation from injuries incurred in 
military service.
    How would you assess the Army's compliance with this provision to 
date?
    Answer. Our Army supports the provisions of NDAA 2005 regarding 
allowing our highly motivated wounded warriors to return to serve on 
Active-Duty.
    We recognize the value of keeping the expertise and experience of 
our severely wounded warriors in our Army. We have made business 
process and regulatory changes to assist these highly motivated 
warriors to stay in the fight. The first priority for our severely 
wounded warriors and their families is their recovery and 
rehabilitation. After treatment, our warriors are afforded the 
opportunity to remain on Active-Duty, should they so desire.
    The Army develops a 5-year plan that encompasses all aspects of the 
severely wounded warrior's life and career such as: location of 
assignment, professional schools, duties, and health care access for 
their particular needs--focused on a professionally and personally 
fulfilling career.
    Question. If confirmed, would you continue to support the efforts 
of members who wish to return to Active-Duty following recovery and 
rehabilitation from injuries received in military service?
    Answer. Support for our wounded warriors is and would remain a top 
priority. We take care of our wounded heroes. The AW2 program's vision 
is that our wounded warriors and their families become self sufficient, 
contributing members of our communities; living and espousing the 
Warrior Ethos, knowing our Army and Nation remembers.

                   MENTAL HEALTH ASSESSMENTS IN IRAQ

    Question. The Army's mental health assessment teams have completed 
three comprehensive assessments of the immediate effects of combat on 
mental health conditions of U.S. soldiers in the Iraq theater. The most 
recent study, MHAT III, found that overall levels of combat stressors 
are increasing. In sum, increasing numbers of troops are returning with 
post-traumatic stress disorder (PTSD), depression, and other mental 
health issues. According to the Army's MHAT III report, the Armed 
Forces Medical Examiner also reported 22 suicides by Army soldiers in 
Iraq in calendar year 2005--a rate nearly twice that reported for the 
previous year.
    What do you see as the greatest challenges being faced by the Army 
in terms of identifying and meeting mental health needs of soldiers and 
their families?
    Answer. I understand that the Army has implemented most of the 
recommendations of the MHAT reports, including the further 
redistribution of mental health staff to provide uniform coverage and 
the further development of suicide prevention efforts in theater. 
However several challenges remain. We need to ensure access to care, 
and reduce stigma associated with behavioral health treatment. 
Availability of mental health professionals remains a national problem 
and this shortage effects the Army's ability to recruit and retain 
these professionals and it effects TRICARE's ability to expand networks 
of civilian mental health providers. Training our soldiers, leaders, 
and families on the long-term signs of stress-related behavioral 
disorders is the best way to combat stigma and ensure that soldiers who 
need help seek help. If confirmed, I would fully support the 
development of innovative training programs for soldiers, families, and 
leaders that address this important issue.
    Question. If confirmed, what specific actions would you take to 
ensure the adequacy of mental health resources both in the theater and 
in CONUS for U.S. soldiers and their families?
    Answer. If confirmed, I would continue to support the existing 
programs developed by the Army and DOD. The Army Deputy Chief of Staff 
for Personnel (DCSPER) and The Army Surgeon General (TSG) share 
responsibility for the prevention and screening for PTSD for both 
Active component and Reserve component soldiers. The DCSPER manages the 
Deployment Cycle Support Program aimed at soldiers and family members 
and TSG has policy oversight of the Combat and Operational Stress 
Control program aimed at soldiers serving in the global war on terror. 
TSG also has command responsibility for behavioral health services at 
Army medical treatment facilities around the world providing treatment 
for all Army beneficiaries. I also will continue to support the 
continued development and expansion of new programs such as Battlemind 
training and the Respect.MIL program. Battlemind provides scenario-
based training for soldiers and families in all phases of the 
deployment cycle. Respect.MIL trains primary care providers to diagnose 
PTSD and other combat stress problems and manage treatment of those 
disorders in the primary care clinic, improving access and further 
reducing the stigma associated with seeking behavioral health care.
    Question. According to the MHAT III study, fewer soldiers report 
that they received sufficient training to identify other soldiers at 
risk for suicide.
    If confirmed, what actions will you take to reassess the adequacy 
of suicide prevention programs within the Army?
    Answer. An updated suicide prevention program has already been 
implemented, which has numerous initiatives. The DCSPER is revising 
suicide prevention training and planning in direct response to this 
MHAT finding. There will be specific education provided during initial 
entry training and throughout the soldier's tenure in the Army. If 
confirmed, I will continue to support these initiatives. One of the 
major emphases of the revised training is the importance of taking care 
of one's buddies. Small unit leaders must encourage help-seeking 
behaviors, recognize warning signs of suicidal behavior, and refer for 
care if needed. The most common motives for suicide in our soldiers are 
difficulties in intimate relationships, and occupational/legal/
financial difficulties. Leaders must consider a referral to the 
chaplains, combat stress control teams or other behavioral health 
specialists anytime they see a soldier struggling with these problems.
    Question. Based on your experience in theater, what additional 
resources do you think are necessary to prevent suicides in the Army?
    Answer. The Army's senior leaders are already behind the push to 
decrease stigma and improve access to behavioral health care. However, 
there is no simple solution to decreasing the suicide rate. Army's 
behavioral health providers are very busy, but they rely on soldiers 
seeking help or the soldier's buddies or chain of command recognizing 
symptoms and intervening to get the soldier help. Our health care 
providers are supplemented by chaplains, counselors, and TRICARE 
network providers. The Army needs to keep doing everything possible to 
recruit and retain military behavioral healthcare providers and seeking 
additional authorities to enhance retention when necessary. If 
confirmed, I would also encourage civilian providers to join the 
TRICARE network to demonstrate their support for the sacrifices our 
soldiers and families make on behalf of the Nation.

                           OFFICER SHORTAGES

    Question. A report issued by the Congressional Research Service 
(CRS) in July 2006 found that the Army projects an officer shortage of 
nearly 3,000 in fiscal year 2007, with the most acute shortfalls in the 
grades of captain and major with 11 to 17 years of service. Unless 
corrective action is taken, CRS found that shortages will persist 
through 2013 unless accessions are increased and retention improves.
    What is your understanding of the reasons for the current 
shortfall, and what steps is the Army taking to meet this mid-career 
officer shortfall?
    Answer. The current shortfall of officers is a result of the rapid 
increase in force structure (modularity and end strength increases). 
Since 2002, the Army has grown over 8,000 officer positions; roughly 88 
percent of this growth is in the ranks of senior captain and major. 
Since it takes 10 years to grow/develop a major, to grow the officer 
force we need to retain more of our ``best and brightest'' officers and 
increase our officer accessions.
    Question. If confirmed, what actions would you take to ensure 
adequate numbers of highly qualified captains and majors are serving on 
Active-Duty over the next 10 years?
    Answer. The Army is continuing to explore other options for 
retaining more of our best officers. Some of these options include 
offering captains who are completing their initial Active-Duty service 
an officer critical skills retention bonus of $20,000 in exchange of 4-
years of Active-Duty service. The Army is also preparing policy to 
implement provisions in existing law that will enable lieutenant 
colonels and colonels to serve an additional 5-years past their 
Mandatory Retirement Date (MRD) as long as they haven't reach age 62. 
The Army expects this policy to be published within the next couple of 
months and is confident that it will be able to meet future manning 
needs.

               MEDICAL PERSONNEL RECRUITING AND RETENTION

    Question. The Army is facing significant shortages in critically 
needed medical personnel in both Active components and Reserve 
components. The committee is concerned that growing medical support 
requirements, caused by the stand-up of BCTs, potential growth of the 
Army, and surge requirements in theater, will compound the already 
serious challenges faced in recruitment and retention of medical, 
dental, nurse, and behavioral health personnel. Moreover, the committee 
understands that the Army continues to direct conversion of military 
medical billets to civilian or contractor billets.
    Will you assure the committee that, if confirmed, you will 
undertake a comprehensive review of the medical support requirements 
for the Army, incorporating all new requirements for 2008 and beyond?
    Answer. I fully support a quality medical force that can meet the 
Army's medical readiness requirements and can maintain our commitment 
of quality health care for Army families and retirees. If confirmed, I 
will support a comprehensive assessment of current Army manpower 
strategies on medical military/civilian conversion to ensure these 
plans remain relevant to bolstering Army operational readiness, and 
further, are in sync with plans to grow Army end strength.
    Question. What policy and/or legislative initiatives do you think 
are necessary in order to ensure that the Army can continue to fulfill 
medical support requirements as its mission and end-strength grow?
    Answer. Critical to our success are adequate and appropriate 
funding for necessary recruitment programs such as Active and Reserve 
Health Professions Loan Repayment Program, Health Professions 
Scholarship Program, Specialized Training Assistance Program, Medical 
and Dental School Stipend Program, and the other Accession Bonus 
programs all of which we have current legislative authority. As we 
develop Army wide initiatives to retain our quality and battle hardened 
soldiers, we must ensure that the Army Medical Department requirements 
are met. Elimination or modification of the 8-year MSO, replaced with a 
more flexible MSO scale, will assist us in the recruiting efforts of 
qualified medical professionals. We need a comprehensive review of the 
Medical Special Pays and should consider restructuring our current 
system to include all health care providers. This will be fundamental 
toward eliminating the shortages experienced in our Dental and Nurse 
Corps. Legislative initiatives which provide greater flexibility to 
transfer between Army components must be explored and enhanced. This is 
especially true with regard to the currently required scrolling 
process. The current process has created impediments to the rapid 
accession of health care professionals into all components of our 
force. Our civilian workforce has become increasingly important as the 
medical force is reshaped. Adequate and appropriate funding is needed 
to support the backfill of converted military billets.

                   NATIONAL SECURITY PERSONNEL SYSTEM

    Question. Congress enacted broad changes in the DOD civilian 
personnel system in 2004 to provide the Department with more flexible 
tools for the management of its civilian workforce in support of our 
national security. Although the Department is presently enjoined from 
implementation of a new labor-relations system, the Department is 
planning to move ahead in the implementation of a new pay-for-
performance system for its non-union employees.
    Based on your experience, what are the critical factors for 
successful implementation of a total transformation of workforce 
policies and rules, including performance-based pay?
    Answer. Among the factors I consider critical are leadership 
commitment and support and an educated and knowledgeable workforce. The 
Army must focus on a pay for performance system that is consistent, 
fair, equitable, and recognizes our top performers. The Army has 
successfully completed the first performance management payout which 
has demonstrated a clear linkage between employee performance and 
organizational goals. The Army's approach includes an incremental 
deployment schedule that allows supervisors and employees to be 
adequately trained and the application of lessons learned from earlier 
workforce conversions. If I am confirmed, I am committed to ensuring 
that the Army workforce is trained and ready for this new system.
    Question. If confirmed, how would you monitor the acceptance of the 
National Security Personnel System (NSPS) and what role would you 
expect to play in managing the NSPS implementation in the Army?
    Answer. I strongly support the need for transformation in civilian 
management--particularly pay for performance--and will set that tone 
for the leadership in the Army as we implement NSPS. The Army has 
established an NSPS Program Management Office that recommends Army NSPS 
policy, provides guidance, monitors implementation, and will keep me 
informed of progress and any issues that require my attention. In 
addition to the inclusion of NSPS-specific questions in Army's annual 
workforce survey, on-site evaluations to assess program effectiveness 
are being performed which will provide additional implementation 
feedback and lessons learned. Finally, Army is leading the way in the 
monitoring of NSPS DOD-wide. Our Civilian Personnel Evaluation Agency 
has been designated by DOD to evaluate the NSPS performance management 
system for deployment to the entire Department.

       MANAGEMENT AND DEVELOPMENT OF THE SENIOR EXECUTIVE SERVICE

    Question. The transformation of the Armed Forces has brought with 
it an increasing realization of the importance of efficient and forward 
thinking management of senior executives.
    What is your vision for the management and development of the Army 
senior executive workforce, especially in the critically important 
areas of acquisition, financial management, and the scientific and 
technical fields?
    Answer. I support the Secretary of the Army's approach to Senior 
Executive Service (SES) management within the Army and share his vision 
of a senior civilian workforce that possesses a broad background of 
experiences that will have prepared them to move between positions to 
meet the continually changing mission needs of the Army. I recognize 
the value of our senior workforce, and if I am confirmed, I will be 
committed to providing for the professional development and management 
of civilian executives in ways similar to the management of Army 
General Officer Corps. If I am confirmed, I would support the 
Secretary's goals to strengthen the senior executive corps 
contributions to leadership team and to promote and sustain high morale 
and esprit de corps within our civilian workforce.

                             SEXUAL ASSAULT

    Question. On February 25, 2004, the Senate Armed Services Committee 
Subcommittee on Personnel conducted a hearing on policies and programs 
of the DOD for preventing and responding to incidents of sexual assault 
in the Armed Forces at which the Service Vice Chiefs endorsed a ``zero 
tolerance'' standard. Subsequently, in response to congressional 
direction, the Department developed a comprehensive set of policies and 
procedures aimed at improving prevention of and response to incidents 
of sexual assaults, including appropriate resources and care for 
victims of sexual assault.
    What is your understanding of the practices currently in use in the 
Army to ensure awareness of and tracking of the disposition of reported 
sexual assaults?
    Answer. Since 2004, the Army has implemented a comprehensive Sexual 
Assault Prevention and Response Program. A key element of this program 
is the awareness training developed and taught at every level of the 
Army's institutional training--from initial entry to the Army War 
College. Additionally, unit refresher training is an annual requirement 
for all Army units. Also, as part of this program, the Army collects 
and analyzes selected sexual assault incident data, which is provided 
for quarterly and annual reports to DOD for consolidation into the 
Secretary of Defense annual report to Congress.
    Question. What progress has been made in ensuring that adequate 
numbers of sexual assault victim advocates are available in Army units 
worldwide?
    Answer. The Army has taken significant steps to improve the 
assistance to victims of all sexual assaults, with enhanced recognition 
of the special circumstances that apply to deployments. A key element 
of the Army's Sexual Assault Prevention and Response Program is the 
victim advocacy component which is led by Sexual Assault Response 
Coordinators (SARCs) at every Army installation. These SARCs are 
supported by a cadre of full-time, professional Victim Advocates or 
appointed Unit Victim Advocates (UVA) who interact directly with 
victims of sexual assault.
    Additionally, Deployable SARCs (DSARCs) and UVA provide advocacy 
services in a deployed environment. DSARCs are soldiers trained and 
responsible for coordinating the sexual assault prevention and response 
program (as a collateral duty) in a specified area of a deployed 
theater. Army policy requires one deployable SARC at each brigade level 
unit and higher echelon. UVA are soldiers trained to provide victim 
advocacy as a collateral duty while deployed. Army policy requires two 
UVA for each battalion sized unit.
    Question. If confirmed, what oversight role would you expect to 
play?
    Answer. If confirmed, I will ensure compliance with established 
policies and procedures at all levels of command, including those in 
the Army National Guard and U.S. Army Reserves.

                    RELIGIOUS PRACTICES IN THE ARMY

    Question. What is your assessment of policies within the Army aimed 
at ensuring religious tolerance and respect?
    Answer. I believe that Army regulations provide commanders and 
other leaders ample guidance regarding the free exercise of religion, 
religious tolerance, and respect in the Army. AR 600-20, Army Command 
policy; AR 165-1, Chaplain Activities in the United States Army; and 
DOD directive 1300.17, Accommodation of Religious Practices Within the 
Military Services, provide detailed guidance on the important 
responsibilities of commanders and leaders in this regard. It is my 
understanding that these policies are consistent with the Constitution 
and I believe they foster religious tolerance and respect within our 
Army.

                            WOMEN IN COMBAT

    Question. Section 541 of the NDAA for Fiscal Year 2006 required the 
Secretary of Defense to report to Congress on his review of the current 
and future implementation of the policy regarding assignment of women 
in combat. In conducting the review, the Secretary of Defense is 
directed to closely examine Army unit modularization efforts and 
associated personnel assignment policies to ensure their compliance 
with the DOD policy on women in combat that has been in effect since 
1994.
    What is your view of the appropriate combat role for female 
soldiers on the modern battlefield?
    Answer. The study requested by Congress and underway within the DOD 
will help the Department understand the implications for, and 
feasibility of, current policies regarding women in combat, 
particularly in view of the Army's transformation to a modular force 
and the irregular, non-linear nature of battlefields associated with 
today's conflicts.
    It is my understanding that the Army's transformation to modular 
units is expected to be based on the current policy concerning the 
assignment of women. Women have and will continue to be an integral 
part of our Army team, performing exceptionally well in all specialties 
and positions open to them. Women make up about 14 percent of the 
Active Army, 23 percent of the Army Reserve, and 13 percent of the Army 
National Guard. Approximately 10 percent of the forces deployed in 
support of the global war on terrorism are women soldiers. Today, 
almost 13,000 women soldiers--10 percent of the force--are serving in 
Iraq and Afghanistan.
    These women, like their male counterparts and the Army's civilians, 
are serving honorably, selflessly, and courageously. If confirmed, I 
would ensure that the Army complies with laws and regulations in this 
matter.
    Question. In your opinion, is the current and planned future Army 
personnel assignment policy for women consistent with the DOD ground 
combat exclusion policy in effect since October 1994?
    Answer. The Army completed a thorough review of our policy late in 
2005. The Secretary of the Army determined that our policy is 
consistent with that of DOD. I agree with the Secretary's assessment.
    Question. How do you anticipate you will participate in the review 
of the policy required by section 541?
    Answer. The OSD has undertaken to complete the comprehensive review 
requests by this committee and Congress. It is an important study of 
complex issues critical to the Department. The Army will support the 
OSD to complete this review. The Army, DOD, and Congress must work 
closely together on this issue. If confirmed, I will endeavor to 
provide the Secretary with cogent advice regarding implementation of 
this policy. If in the future the Army determines that there is a need 
to seek a change to the policy, I will, if confirmed, comply fully with 
all notification requirements in title 10, U.S.C.

                FOREIGN LANGUAGE TRANSFORMATION ROADMAP

    Question. A Foreign Language Transformation Roadmap announced by 
the Department on March 30, 2005, directed a series of actions aimed at 
transforming the Department's foreign language capabilities, to include 
revision of policy and doctrine, building a capabilities based 
requirements process, and enhancing foreign language capability for 
both military and civilian personnel.
    What is your understanding of steps being taken within the Army to 
achieve the goals of the Defense Language Transformation roadmap?
    Answer. The Army is actively engaged in all 43 tasks identified in 
the Defense Language Transformation Roadmap and has undertaken many 
initiatives to achieve the roadmap goals of: 1) Create Foundational 
Language and Regional Area Expertise; 2) Create the Capacity to Surge; 
3) Establish a Cadre of Language Professionals and Address Language 
Requirements at Lower Skill Levels; and 4) Establish a Process to Track 
the Accession and Career Progression of Military Personnel with 
Language Skill and Foreign Area Officers.
    Question. What is your assessment of an appropriate time frame 
within which results can be realized in this critical area?
    Answer. The Army is already achieving results as envisioned in the 
Defense Language Transformation Roadmap. Pinpointing the time frame 
when we will fully realize all of the goals of the roadmap is difficult 
to do with precision, since language training takes time, and many of 
the roadmap initiatives are dependent on availability of adequate 
resources. The Army is improving the number, quality, and management of 
its foreign language speakers, and actively pursuing programs which 
provide all soldiers appropriate linguistic skills to support current 
operations. Much has been accomplished but there is more to be done--
within available resources and operational requirements, we are taking 
the appropriate steps to achieve the results envisioned in the Defense 
Language Transformation Roadmap in the shortest time possible.

                        MILITARY QUALITY OF LIFE

    Question. In May 2004 the Department published its first 
Quadrennial Quality of Life Review, which articulated a compact with 
military families on key quality of life factors, such as family 
support, child care, education, health care, and morale, welfare, and 
recreation services.
    How do you perceive the relationship between quality of life and 
your own top priorities for recruitment, retention, and readiness of 
Army personnel?
    Answer. Strengthening the mental, physical, spiritual, and material 
condition of our soldiers, civilians, and their families enables them 
to achieve their individual goals while balancing the demanding 
institutional needs of today's expeditionary Army. The well-being of 
our people and their quality of life are my top priorities.
    Army Well-Being and Quality of Life programs are extensive. They 
range from pay and compensation, medical, and morale, welfare, and 
recreation (MWR) to housing and family readiness programs. Our 
recruiting efforts must be competitive with private industry. Our 
ability to reach out and gain access to our young men and women is 
critical. The retention of each soldier is directly related to the 
value of their achievements and maintaining the vital support of their 
families. As we bring our soldiers and their units to their peak 
readiness, we must enable the readiness of our Army families.
    Question. If confirmed, what steps would you take to assess the 
adequacy of family support programs for both the Active components and 
Reserve components?
    Answer. The adequacy of family support programs is assessed 
annually by Installation Status Report Services rating. In addition, 
the Active component accreditation program ensures that Active 
component centers worldwide maintain the level of quality performance 
specified in the MWR program standards set by the MWR Board of 
Directors. The family support programs are also assessed using customer 
feedback at the installation level and through the MWR Needs and 
Leisure Survey.
    The Multi-Component Family Support Network, a seamless array of 
family support services accessed by the soldier and family--Active, 
Guard, and Reserve, regardless of their geographical location, will 
also be significant means of collecting customer feedback and improving 
support programs.
    In addition, each year, the Active Army, Army National Guard, and 
Army Reserve will assess requirements for global war on terror funding 
and request the additional funds as necessary.
    Question. What actions do you think are necessary in order to 
support best practices for support of family members of deployed 
forces, and would you attempt to replicate such practices throughout 
the Army?
    Answer. There are many programs and support systems that I 
categorize as best practices. Deployment Cycle Support (DCS) is a 
comprehensive process that ensures soldiers, DA civilians, and their 
families are better prepared and sustained through the deployment 
cycle. It provides a means to identify soldiers, DA civilians, and 
families who may need assistance with the challenges inherent with 
extended deployments. The goal of the DCS process is to facilitate 
soldier, DA civilian, and family well-being throughout the deployment 
cycle. Services for DA civilians and families are integrated in every 
stage of the process, and they are highly encouraged to take advantage 
of resources provided.
    The Army Information Line is an integrated system consisting of a 
toll-free phone service, a dynamic Web presence, and on-line 
publications. This system provides accurate information, useful 
resources, and problem resolution tailored for Army soldiers and their 
families to include the extended families of our soldiers. This service 
includes a Web presence (Our Survivors) uniquely configured to support 
the survivors of our fallen soldiers. An experienced staff answers the 
Army information line and provides responses to inquiries received 
through the Army Families Online Web site (www.armyfamiliesonline.org).
    A great example is the Strong Bonds Program administered by our 
chaplains. The Chaplain Corps gives our soldiers and families the 
skills needed to thrive in Army life by conducting a series of marriage 
strengthening retreats and training events. Recognizing that even our 
single soldiers are in or are beginning relationships, in fiscal year 
2005 this program was expanded to provide training to single soldiers 
in how to build life-long relationships. In fiscal year 2006 the 
chaplains led over 600 of these events attended by nearly 25,000 
soldiers and family members in all Army components. This and other 
family support programs represent a solid network that allows our 
soldiers to build great lives and effectively serve their country 
through full careers.
    Question. In your view, what progress has been made, and what 
actions need to be taken in the Army to provide increased employment 
opportunities for military spouses?
    Answer. The Army continues to work with the Nation's business 
community to support spouse employment opportunities. Since 2003, the 
Army has signed statements of support with 18 Fortune 500 companies. 
These firms pledged their best efforts to increase employment 
opportunities for our spouses by connecting them to new and existing 
jobs, portable jobs, and other methods of pursuing lifetime career 
goals. During the past 2 years, these companies have employed over 
11,000 Army spouses.

             RESOURCE ALLOCATION AND ACQUISITION PROCESSES

    Question. Are you familiar with the Army's resource allocation and 
acquisition processes?
    Answer. Yes, I have familiarity with and played a role in the PPBE 
process during my tenure as the Vice Chief of Staff of the Army.
    Question. What recommendations, if any, do you have for improving 
those processes?
    Answer. QDR 06 continued us on the path of linking resources to 
joint capabilities. The Army provides a variety of capabilities to 
joint forces, and I look forward to working with OSD and the Joint 
Staff to continue improvement of management by capability portfolio as 
noted in the QDR 2006 report.
    Question. Do you see a need for any change in the role played by 
the Army Chief of Staff in the resource allocation and acquisition 
processes?
    Answer. If I am confirmed, my role as CSA is to recommend balanced 
allocation of resources to provide ready forces today and for future 
challenges. While specific processes within OSD continue to evolve, my 
role in focusing on readiness of forces remains constant.

                      ARMY SCIENCE AND TECHNOLOGY

    Question. The Army invests in science and technology (S&T) programs 
to develop advanced capabilities to support current operations and 
future Army systems. The Army's budget request has included a declining 
level of investment in S&T programs over each of the last 4 fiscal 
years.
    What do you see as the role that Army S&T programs will play in 
continuing to develop capabilities for current and future Army systems?
    Answer. The Army's S&T program is the investment that the Army 
makes in our future soldiers. This program must be adaptable and 
responsive to our soldiers in the field. The Army's S&T strategy should 
be to pursue technologies that will enable the future force while 
simultaneously seizing opportunities to enhance the current force.
    Question. Do you believe that the Army should increase its level of 
investment in S&T programs?
    Answer. The Army's planned S&T investments will mature and 
demonstrate the key technologies needed to give our soldiers the best 
possible equipment now and in the future. Given the current environment 
and priorities, I believe our level of investment is appropriate.
    Question. What metrics will you use to judge the value of Army S&T 
programs?
    Answer. The real value of S&T programs is measured in the increased 
capability of the force achieved when new technologies are inserted 
into systems and equipment. While programs are still in S&T, we use the 
standard Technology Readiness Levels (TRLs) to determine when 
technologies are mature enough to transition.
    Question. What role should Army laboratories play in supporting 
current operations and in developing new capabilities to support Army 
missions?
    Answer. From my vantage point, I believe that the S&T community can 
support current operations in three ways. First, soldiers are 
benefiting today from technologies that emerged from past investments. 
Second, the Army should exploit transition opportunities by 
accelerating mature technologies from ongoing S&T efforts. Third, we 
should also seek to leverage the expertise of our scientists and 
engineers to develop solutions to unforeseen problems encountered 
during current operations. To enhance the current force, Army S&T 
should provide limited quantities of advanced technology prototypes to 
our soldiers deployed to the current fight.
    Question. How will you ensure that weapon systems and other 
technologies that are fielded by the Army are adequately operationally 
tested?
    Answer. The Army should not field systems that are not safety-
certified nor rigorously tested in an operational environment. Current 
systems undergo an operational evaluation conducted by an independent 
organization that reports to the Army Chief of Staff. These evaluations 
ensure first that every system fielded to our soldiers is safe to use, 
and then provide an assessment of system effectiveness, suitability, 
and survivability. If I am confirmed, I would work with the Army 
testing community to ensure vigorous compliance with applicable testing 
standards, including those set forth in Army Regulation, AR 70-1, Army 
Acquisition Policy, and DOD Directive 5000.1, The Defense Acquisition 
System. I would also work closely with the Army acquisition workforce, 
to ensure weapons systems are tested and determined to be suitable, 
feasible, safe, and validated to meet the current threat.
    Question. Are you satisfied with the acquisition community's 
ability to address the operational needs of deployed forces?
    Answer. Yes, from my experience it takes more than the acquisition 
community to quickly respond to our soldiers' needs in a wartime 
environment. The Army is addressing those needs through a process of 
requirements validation, funding allocation, and acquisition 
activities. The Army has streamlined the acquisition process by 
reducing the time required to validate requirements, approve funds, and 
develop solutions to meet those requirements. This change in culture 
has required all facets of the acquisition process--requirements, 
resources, development, test, production, and fieldings--to reduce the 
time necessary to complete their tasks. For example, the Army has 
addressed our soldiers' need for better Individual Body Armor 
capability. It was quickly validated as a requirement and prioritized 
for funding to ensure successful systems development and procurement. 
To date, the Army has fielded seven versions of the Individual Body 
Armor Suite, each better than the last.
    Question. What recommendations would you have to speed the ability 
for the Army to provide operational forces with the specific systems 
and other capabilities that they request?
    Answer. If I am confirmed, I will continuously monitor the process 
from requirements generation, funding, and through the acquisition 
process, to provide the soldiers what they need as quickly as we can in 
a safe, feasible, suitable, manner within acceptable risk tolerance. 
The Army needs to closely examine the emerging threats and operational 
requirements of soldiers in theater. I would continue the Army's 
commitment to providing our troops the best equipment possible and work 
with industry partners to pursue research development and procurement 
of the most advanced capabilities available. Finally, I would ensure 
that the Army does not purchase or field any system that is not proven, 
tested, and validated as operationally ready and safe.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Chief of Staff, Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Daniel K. Akaka

                        CONTRACT SECURITY FORCES

    1. Senator Akaka. General Casey, if confirmed as the Army Chief of 
Staff, one of your responsibilities will be to provide independent 
military advice to the Secretary of Defense, the President, and 
Congress. As such, I am interested in your views regarding reliance on 
contractor security forces in Baghdad. When General Petraeus testified 
before this committee last week, he indicated that he thought the surge 
troop levels would be sufficient even though they are significantly 
less than the levels recommended by the Army's counterinsurgency 
doctrine. General Petraeus reasoned that because there are tens of 
thousands of civilian contract security forces protecting key sites in 
Baghdad, the Multi-National Force-Iraq and the Iraqi government would 
not have to detail resources to protect these sites. Thus, the addition 
of all five U.S. brigades under orders to reinforce Baghdad and the 
Iraqi Security Forces either in Baghdad or headed to the city should 
provide sufficient military forces to achieve our objective of securing 
Baghdad. Since you are the General who is probably most familiar with 
the current situation in Baghdad, can you tell us your assessment of 
how much we can rely on contract security forces to support our new 
mission of making Baghdad more secure? In your answer, please address 
the level of operational and tactical control we have on these 
contractors, as well as how well-equipped and well-trained they are.
    General Casey. We rely on coalition forces and Iraqi security 
forces to make Baghdad more secure. They are the ones patrolling the 
neighborhoods, interacting with the population, manning the 
checkpoints, and responding to crises. Contract security personnel 
support this effort by protecting certain fixed sites and key 
personnel. Their service is important in the overall effort. They are 
trained and equipped by the respective contractor firms. Control is 
exercised by their supervisory structure which is guided by the tenets 
of the agreed upon contract. My impression has been that they are 
prepared for their tasks and that they perform well.

    2. Senator Akaka. General Casey, what are the rules of engagement 
for the contract security forces relative to insurgents?
    General Casey. [Deleted.]

    3. Senator Akaka. General Casey, how likely are these contract 
security forces to become primary targets for the insurgency as we 
implement the President's strategy?
    General Casey. I do not believe it is likely that, as we implement 
the President's strategy, contract security forces will become primary 
targets for the insurgency. Ongoing counterinsurgency operations in 
Baghdad and elsewhere in Iraq are designed to reduce levels of 
violence. Over time, I would anticipate that we will see gradually 
improving conditions with reductions in sectarian violence and attacks 
on coalition forces. Contract security personnel accept certain risks 
inherent in their responsibilities but they are no greater than those 
run by members of the coalition forces or the Iraqi security forces. 
They are trained and equipped for their missions where they apply risk 
mitigation based on their experience and their understanding of the 
complex environment. I believe they will continue to face dangerous 
situations and periodic attacks, but I do not see them becoming the 
primary target of the insurgents.
                                 ______
                                 
    [The nomination reference of GEN George W. Casey, Jr., USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 16, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as the Chief of Staff, 
United States Army, and appointment to the grade indicated while 
assigned to a position of importance and responsibility under title 10, 
U.S.C., sections 3033 and 601:

                             To be General

    George W. Casey, Jr., 0000.
                                 ______
                                 
    [The biographical sketch of GEN George W. Casey, Jr., USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
       Resume of Service Career of GEN George W. Casey, Jr., USA
Source of commissioned service: ROTC.

Military schools attended:
    Infantry Officer Basic and Advanced Course
    Armed Forces Staff College
    Senior Service College Fellowship--The Atlantic Council

Educational degrees:
    Georgetown University--BS--International Relations
    University of Denver--MA--International Relations

Foreign language(s): None recorded.

Promotions:

------------------------------------------------------------------------
                                                           Dates of
                                                          Appointment
------------------------------------------------------------------------
2LT.................................................         21 Oct. 70
1LT.................................................         21 Oct. 71
CPT.................................................         21 Oct. 74
MAJ.................................................          6 Sep. 80
LTC.................................................          1 Aug. 85
COL.................................................           1 May 91
BG..................................................          1 Jul. 96
MG..................................................          1 Sep. 99
LTG.................................................         31 Oct. 01
GEN.................................................          1 Dec. 03
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Apr. 71.........................  Sep. 72...........  Mortar Platoon
                                                       Leader, later
                                                       Liaison Officer,
                                                       Headquarters and
                                                       Headquarters
                                                       Company, 2d
                                                       Battalion, 509th
                                                       Infantry
                                                       (Airborne), 8th
                                                       Infantry
                                                       Division, United
                                                       States Army
                                                       Europe, Germany.
Sep. 72.........................  Jun. 73...........  Platoon Leader, A
                                                       Company, 2d
                                                       Battalion 509th
                                                       Infantry
                                                       (Airborne), 8th
                                                       Infantry
                                                       Division, United
                                                       States Army
                                                       Europe, Germany.
Jun. 73.........................  Oct. 74...........  Mortar Platoon
                                                       Leader, later
                                                       Executive
                                                       Officer, A
                                                       Company, 1st
                                                       Battalion, 509th
                                                       Infantry
                                                       (Airborne),
                                                       United States
                                                       Army Southern
                                                       European Task
                                                       Force, Italy.
Oct. 74.........................  Dec. 75...........  Student, Ranger
                                                       School and
                                                       Infantry Officer
                                                       Advanced Course,
                                                       United States
                                                       Army Infantry
                                                       School, Fort
                                                       Benning, GA.
Dec. 75.........................  Apr. 77...........  Assistant S-4
                                                       (Logistics),
                                                       later S-4, 1st
                                                       Battalion, 11th
                                                       Infantry, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Carson, CO.
Apr. 77.........................  Apr. 78...........  Commander, C
                                                       Company, 1st
                                                       Battalion, 11th
                                                       Infantry, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Carson, CO.
Apr. 78.........................  Dec. 78...........  Commander, Combat
                                                       Support Company,
                                                       1st Battalion,
                                                       11th Infantry
                                                       Division
                                                       (Mechanized),
                                                       Fort Carson, CO.
Dec. 78.........................  May 80............  Student,
                                                       International
                                                       Studies,
                                                       University of
                                                       Denver, Denver,
                                                       CO.
Jun. 80.........................  Jan. 81...........  Student, Armed
                                                       Forces Staff
                                                       College, Norfolk,
                                                       VA.
Feb. 81.........................  Feb. 82...........  Department of
                                                       Defense Military
                                                       Observer, United
                                                       States Military
                                                       Observer Group,
                                                       United Nations
                                                       Truce Supervision
                                                       Organization,
                                                       Jerusalem.
Feb. 82.........................  Feb. 84...........  S-3 (Operations),
                                                       later Executive
                                                       Officer, 1st
                                                       Battalion, 10th
                                                       Infantry, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Carson, CO.
Feb. 84.........................  May 85............  Secretary of the
                                                       General Staff,
                                                       4th Infantry
                                                       Division
                                                       (Mechanized),
                                                       Fort Carson, CO.
Jul. 85.........................  Jul. 87...........  Commander, 1st
                                                       Battalion, 10th
                                                       Infantry, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Carson, CO.
Aug. 87.........................  Jul. 88...........  Student, United
                                                       States Army
                                                       Senior Service
                                                       College
                                                       Fellowship, The
                                                       Atlantic Council,
                                                       Washington, DC.
Jul. 88.........................  Dec. 89...........  Congressional
                                                       Program
                                                       Coordinator,
                                                       Office of the
                                                       Chief of
                                                       Legislative
                                                       Liaison,
                                                       Washington, DC.
Dec. 89.........................  Jun. 91...........  Special Assistant
                                                       to the Chief of
                                                       Staff, Army,
                                                       Washington, DC.
Aug. 91.........................  May 93............  Chief of Staff,
                                                       1st Cavalry
                                                       Division, Fort
                                                       Hood, TX.
May 93..........................  Mar. 95...........  Commander, 3d
                                                       Brigade, 1st
                                                       Cavalry Division,
                                                       Fort Hood, TX.
Mar. 95.........................  Jul. 96...........  Assistant Chief of
                                                       Staff, G-3
                                                       (Operations),
                                                       later Chief of
                                                       Staff, V Corps,
                                                       United States
                                                       Army, Europe and
                                                       Seventh Army,
                                                       Germany and
                                                       Operation Joint
                                                       Endeavor,
                                                       Hungary.
Jul. 96.........................  Aug. 97...........  Assistant Division
                                                       Commander
                                                       (Maneuver), later
                                                       Assistant
                                                       Division
                                                       Commander
                                                       (Support), 1st
                                                       Armored Division,
                                                       United States
                                                       Army, Europe and
                                                       Seventh Army,
                                                       Germany and Task
                                                       Force Eagle,
                                                       Operation Joint
                                                       Endeavor Bosnia-
                                                       Herzegovina.
Aug. 97.........................  Jun. 99...........  Deputy Director
                                                       for Politico-
                                                       Military Affairs,
                                                       J-5, The Joint
                                                       Staff,
                                                       Washington, DC.
Jul. 99.........................  Jul. 01...........  Commanding
                                                       General, 1st
                                                       Armored Division,
                                                       United States
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany.
Jul. 01.........................  Oct. 01...........  Commander, Joint
                                                       Warfighting
                                                       Center/Director,
                                                       Joint Training, J-
                                                       7, United States
                                                       Joint Forces
                                                       Command, Suffolk,
                                                       VA.
Oct. 01.........................  Oct. 03...........  Director,
                                                       Strategic Plans
                                                       and Policy, J-5,
                                                       later Director,
                                                       The Joint Staff,
                                                       Washington, DC.
Oct. 03.........................  Jun. 04...........  Vice Chief of
                                                       Staff, United
                                                       States Army,
                                                       Washington, DC.
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
                                         Dates               Grade
------------------------------------------------------------------------
Department of Defense Military    Feb. 81-Feb. 82...  Major
 Observer, United States
 Military Observer Group, United
 Nations Truce Supervision
 Organization, Jerusalem (no
 joint credit)
Deputy Director for Politico-     Aug. 97-Jun. 99...  Brigadier General
 Military Affairs J-5, The Joint
 Staff, Washington, DC
Commander, Joint Warfighting      Jul. 01-Oct. 01...  Major General
 Center/Director Joint Training,
 J-7, United States Joint Forces
 Command, Suffolk, VA (no joint
 credit)
Director, Strategic Plans and     Oct. 01-Jan. 03...  Lieutenant General
 Policy, J-5, The Joint Staff,
 Washington, DC
Director, The Joint Staff,        Jan. 03-Oct. 03...  Lieutenant General
 Washington, DC
Commander, Multi-National Force-  Jul. 04-Present...  General
 Iraq, Operation Iraqi Freedom,
 Iraq
------------------------------------------------------------------------


U.S. decorations and badges:
    Defense Distinguished Service Medal (with Oak Leaf Cluster)
    Distinguished Service Medal (with Oak Leaf Cluster)
    Legion of Merit (with two Oak Leaf Clusters)
    Defense Meritorious Service Medal
    Meritorious Service Medal
    Army Commendation Medal (with Oak Leaf Cluster)
    Army Achievement Medal (with Oak Leaf Cluster)
    Expert Infantryman Badge
    Master Parachutist Badge
    Parachutist Badge
    Ranger Tab
    Joint Chiefs of Staff Identification Badge
    Army Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by GEN George W. 
Casey, Jr., USA, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    George W. Casey, Jr.

    2. Position to which nominated:
    Chief of Staff, U.S. Army.

    3. Date of nomination:
    January 16, 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    22/07/48, Sendai, Japan.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Sheila Lynch Casey.

    7. Names and ages of children:
    Sean Patrick Casey, 35; Ryan Michael Casey, 34.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    There are no positions other than those listed in the service 
record extract provided to the committee by the executive branch.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Association of the United States Army.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    There are no honors or awards other than those listed on the 
service record extract provided to the committee by the executive 
branch.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    I do.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    I do.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               George W. Casey, Jr.
    This 15th day of January, 2007.

    [The nomination of GEN George W. Casey, Jr., USA, was 
reported to the Senate by Chairman Levin on February 6, 2007, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on February 8, 2007.]


    TO CONSIDER THE NOMINATIONS OF ADM WILLIAM J. FALLON, USN, FOR 
REAPPOINTMENT TO THE GRADE OF ADMIRAL AND TO BE COMMANDER, U.S. CENTRAL 
COMMAND; GEN GEORGE W. CASEY, JR., USA, FOR REAPPOINTMENT TO THE GRADE 
OF GENERAL AND TO BE CHIEF OF STAFF OF THE ARMY; AND TO VOTE ON PENDING 
                          MILITARY NOMINATIONS

                              ----------                              


                       TUESDAY, FEBRUARY 6, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:13 a.m. in 
room SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, Byrd, 
Reed, E. Benjamin Nelson, Webb, McCaskill, McCain, Warner, 
Sessions, Collins, Ensign, Chambliss, Dole, Thune, and 
Martinez.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearing clerk.
    Majority staff members present: Jonathan D. Clark, minority 
counsel; Daniel J. Cox, Jr., professional staff member; Evelyn 
N. Farkas, professional staff member; Richard W. Fieldhouse, 
professional staff member; Creighton Greene, professional staff 
member; Michael J. Kuiken, professional staff member; Gerald J. 
Leeling, counsel; Peter K. Levine, general counsel; Michael J. 
McCord, professional staff member; William G.P. Monahan, 
counsel; and Michael J. Noblet, research assistant.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Gregory T. Kiley, professional staff member; 
Derek J. Maurer, professional staff member; David M. Morriss, 
minority counsel; Lucian L. Niemeyer, professional staff 
member; Christopher J. Paul, professional staff member; Lynn F. 
Rusten, professional staff member; Sean G. Stackley, 
professional staff member; Diana G. Tabler, professional staff 
member; and Richard F. Walsh, minority counsel.
    Staff assistants present: David G. Collins, Fletcher L. 
Cork, and Jessica L. Kingston.
    Committee members' assistants present: Sharon L. Waxman, 
assistant to Senator Kennedy; Frederick M. Downey, assistant to 
Senator Lieberman; Elizabeth King, assistant to Senator Reed; 
Caroline Tess, assistant to Senator Bill Nelson; Eric Pierce 
and Benjamin Rinaker, assistants to Senator Ben Nelson; Todd 
Rosenblum, assistant to Senator Bayh; Andrew Shapiro, assistant 
to Senator Clinton; Lauren Henry, assistant to Senator Pryor; 
Gordon I. Peterson, assistant to Senator Webb; Nichole M. 
Distefano, assistant to Senator McCaskill; Sandra Luff, 
assistant to Senator Warner; Arch Galloway II, assistant to 
Senator Sessions; Mark J. Winter, assistant to Senator Collins; 
D'Arcy Grisier, assistant to Senator Ensign; Clyde A. Taylor 
IV, assistant to Senator Chambliss; Adam G. Brake, assistant to 
Senator Graham; Lindsey Neas, assistant to Senator Dole; 
Russell J. Thomasson, assistant to Senator Cornyn; and Stuart 
C. Mallory and Bob Taylor, assistants to Senator Thune.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. We have a quorum, and I ask the committee 
now--and we've all been notified--to consider the nominations 
of 2 general officer nominations and a list of 37 pending 
military nominations.
    First, I ask the committee to consider the nomination of 
Admiral William Fallon for reappointment to the grade of 
admiral and to be Commander, U.S. Central Command. Admiral 
Fallon testified before the committee on his nomination last 
Tuesday.
    Is there a motion to favorably report Admiral Fallon's 
nomination?
    Senator Kennedy. So move.
    Chairman Levin. Is there a second?
    Senator McCain. Second.
    Chairman Levin. The Clerk will call the roll.
    The Clerk. Mr. Kennedy?
    Senator Kennedy. Aye.
    The Clerk Mr. Byrd?
    Senator Byrd. Aye.
    The Clerk. Mr. Lieberman? [No response.]
    Mr. Reed?
    Senator Reed. Aye.
    The Clerk. Mr. Akaka? [No response.]
    Mr. Nelson of Florida? [No response.]
    Mr. Nelson of Nebraska?
    Senator Ben Nelson. Aye.
    The Clerk. Mr. Bayh? [No response.]
    Mrs. Clinton? [No response.]
    Mr. Pryor? [No response.]
    Mr. Webb?
    Senator Webb. Aye.
    The Clerk. Mrs. McCaskill?
    Senator McCaskill. Aye.
    The Clerk. Mr. McCain?
    Senator McCain. Aye.
    The Clerk. Mr. Warner?
    Senator Warner. Aye.
    The Clerk. Mr. Inhofe? [No response.]
    Mr. Sessions?
    Senator Sessions. Aye.
    The Clerk. Ms. Collins?
    Senator Collins. Aye.
    The Clerk. Mr. Ensign?
    Senator Ensign. Aye.
    The Clerk. Mr. Chambliss?
    Senator Chambliss. Aye.
    The Clerk. Mr. Graham? [No response.]
    Mrs. Dole?
    Senator Dole. Aye.
    The Clerk. Mr. Cornyn? [No response.]
    Mr. Thune?
    Senator Thune. Aye.
    The Clerk. Mr. Martinez?
    Senator Martinez. Aye.
    The Clerk. Mr. Chairman?
    Chairman Levin. Aye.
    The Clerk. Sixteen ayes, no nays.
    Chairman Levin. The motion carries, 16 to 0, and the record 
will be kept open for the others. The motion carries.
    Next, I ask the committee to consider the nomination of 
General George Casey for reappointment to the grade of general 
and to be Chief of Staff of the Army.
    Is there a motion to favorably report General Casey's 
nomination to the Senate?
    Senator Kennedy. So move.
    Chairman Levin. Second?
    Senator Collins. Second.
    Chairman Levin. Clerk will call the roll.
    The Clerk. Mr. Kennedy?
    Senator Kennedy. Aye.
    The Clerk. Mr. Byrd?
    Senator Byrd. Aye.
    The Clerk. Mr. Lieberman? [No response.]
    Mr. Reed?
    Senator Reed. Aye.
    The Clerk. Mr. Akaka? [No response.]
    Mr. Nelson of Florida? [No response.]
    The Clerk. Mr. Nelson of Nebraska?
    Senator Ben Nelson. Aye.
    The Clerk. Mr. Bayh? [No response.]
    Mrs. Clinton? [No response.]
    Mr. Pryor? [No response.]
    Mr. Webb?
    Senator Webb. Aye.
    The Clerk. Mrs. McCaskill?
    Senator McCaskill. Aye.
    The Clerk. Mr. McCain?
    Senator McCain. No.
    The Clerk. Mr. Warner?
    Senator Warner. Aye.
    The Clerk. Mr. Inhofe? [No response.]
    Mr. Sessions?
    Senator Sessions. Aye.
    The Clerk. Ms. Collins?
    Senator Collins. Aye.
    The Clerk. Mr. Ensign?
    Senator Ensign. No.
    The Clerk. Mr. Chambliss?
    Senator Chambliss. No.
    The Clerk. Mr. Graham? [No response.]
    Mrs. Dole?
    Senator Dole. Aye.
    The Clerk. Mr. Cornyn? [No response.]
    Mr. Thune?
    Senator Thune. Aye.
    The Clerk. Mr. Martinez?
    Senator Martinez. Aye.
    The Clerk. Mr. Chairman?
    Chairman Levin. Aye.
    The Clerk. Mr. Lieberman?
    Senator Lieberman. Aye.
    The Clerk. Fourteen ayes, three nays.
    Chairman Levin. Fourteen ayes, three nays, the motion 
carries. The record will be kept open for those who are 
missing. The motion will be favorably reported.
    Finally, I ask the committee to consider a list of 37 
pending military nominations.
    Is there a motion to favorably report those 37 nominations?
    Senator Kennedy. So move.
    Chairman Levin. Second?
    Senator Warner. Second.
    Chairman Levin. Is there a second?
    Senator Warner. Second.
    Chairman Levin. All in favor, say aye. [A chorus of ayes.]
    Opposed, no. [No response.]
    The ayes have it, the motion carries.
    Thank you all.
    [The list of nominations considered and approved by the 
committee follows:]
 Military Nominations Pending with the Senate Armed Services Committee 
  which are Proposed for the Committee's Consideration on February 6, 
                                 2007.
    1. GEN George W. Casey, Jr., USA, to be general and Chief of Staff, 
U.S. Army (Reference No. 177).
    2. ADM William J. Fallon, USN, to be admiral and Commander, U.S. 
Central Command (Reference No. 181).
    3. LTG James M. Dubik, USA, to be lieutenant general and Commander, 
Multi-National Security Transition Command-Iraq and Commander, NATO 
Training Mission-Iraq, U.S. Central Command (Reference No. 179).
    4. BG Thomas W. Travis, USAF, to be major general (Reference No 
195).
    5. Col. David H. Cyr, USAF, to be brigadier general (Reference No. 
196).
    6. Col. Douglas J. Robb, USAF, to be brigadier general (Reference 
No. 197).
    7. In the Air Force Reserve, there are 16 appointments to the grade 
of major general and below (list begins with Frank J. Casserino) 
(Reference No. 198).
    8. In the Air Force, there are six appointments to the grade of 
lieutenant colonel and below (list begins with Michael D. Jacobson) 
(Reference No. 200).
    9. In the Air Force, there are 11 appointments to the grade of 
lieutenant colonel and below (list begins with Stuart C. Calle) 
(Reference No. 201).

    Total: 39.

    [Whereupon, at 10:15 a.m., the executive session 
adjourned.]


            TO CONSIDER CERTAIN PENDING MILITARY NOMINATIONS

                              ----------                              


                       TUESDAY, FEBRUARY 27, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:54 a.m. in 
room SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, 
Akaka, Bill Nelson, Bayh, Pryor, Webb, Warner, Inhofe, 
Sessions, Collins, Graham, Thune, and Martinez.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Evelyn N. Farkas, 
professional staff member; Richard W. Fieldhouse, professional 
staff member; Gerald J. Leeling, counsel; Thomas K. McConnell, 
professional staff member; William G.P. Monahan, counsel; and 
Michael J. Noblet, research assistant.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Derek J. Maurer, minority counsel; David M. 
Morriss, minority counsel; Lynn F. Rusten, professional staff 
member; and Richard F. Walsh, minority counsel.
    Staff assistants present: Fletcher L. Cork, Micah H. 
Harris, and Jessica L. Kingston.
    Committee members' assistants present: Joseph Axelrad and 
Sharon L. Waxman, assistants to Senator Kennedy; James Tuite, 
assistant to Senator Byrd; Frederick M. Downey, assistant to 
Senator Lieberman; Elizabeth King, assistant to Senator Reed; 
Richard Kessler and Darcie Tokioka, assistants to Senator 
Akaka; Sherry Davich and Caroline Tess, assistants to Senator 
Bill Nelson; Todd Rosenblum, assistant to Senator Bayh; Andrew 
Shapiro, assistant to Senator Clinton; Lauren Henry, assistant 
to Senator Pryor; Gordon I. Peterson, assistant to Senator 
Webb; John A. Bonsell, assistant to Senator Inhofe; Arch 
Galloway II, assistant to Senator Sessions; Mark J. Winter, 
assistant to Senator Collins; Adam G. Brake, assistant to 
Senator Graham; Lindsey Neas, assistant to Senator Dole; Stuart 
C. Mallory, assistant to Senator Thune; and Brian W. Walsh, 
assistant to Senator Martinez.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. We now have a quorum, so I would ask my 
colleagues to consider a list of 1,281 pending military 
nominations. They have all been before the committee the 
required length of time. We know of no objection to any of 
them. Is there a motion to favorably report these 1,281 
military nominations to the Senate?
    Senator Thune. So moved.
    Chairman Levin. A second?
    Senator Inhofe. Second.
    Chairman Levin. All in favor say aye. [A chorus of ayes.]
    Opposed, no? [No response.]
    The ayes have it. The motion carries.
    [The list of nominations considered and approved by the 
committee follows:]
 Military Nominations Pending with the Senate Armed Services Committee 
 Which are Proposed for the Committee's Consideration on February 27, 
                                 2007.
    1. In the Marine Corps there are 11 appointments to be brigadier 
general (list begins with David H. Berger) (Reference No. 189).
    2. In the Air Force Reserve there are 30 appointments to the grade 
of major general and below (list begins with Shelby G. Bryant) 
(Reference No. 210).
    3. Col. Tracy L. Garrett, USMCR to be brigadier general (Reference 
No. 214).
    4. In the Air Force there are 14 appointments to the grade of 
colonel (list begins with Gino L. Auteri) (Reference No. 216).
    5. In the Air Force there are 15 appointments to the grade of 
colonel (list begins with Brian E. Bergeron) (Reference No. 217).
    6. In the Air Force there are 35 appointments to the grade of 
colonel (list begins with Brian D. Affleck) (Reference No. 218).
    7. In the Air Force there are 24 appointments to the grade of 
lieutenant colonel (list begins with William R. Baez) (Reference No. 
219).
    8. In the Air Force there are 151 appointments to the grade of 
lieutenant colonel (list begins with Kent D. Abbott) (Reference No. 
220).
    9. In the Air Force there are four appointments to the grade of 
lieutenant colonel and below (list begins with Anthony J. Pacenta) 
(Reference No. 221).
    10. In the Air Force there are 51 appointments to the grade of 
major (list begins with Tansel Acar) (Reference No. 222).
    11. In the Air Force there are 287 appointments to the grade of 
major (list begins with Brian G. Accola) (Reference No. 223).
    12. In the Army Reserve there is one appointment to the grade of 
colonel (Todd A. Plimpton) (Reference No. 224).
    13. In the Army Reserve there are two appointments to the grade of 
colonel (list begins with Perry L. Hagaman) (Reference No. 225).
    14. In the Army there are 84 appointments to the grade of major 
(list begins with David W. Admire) (Reference No. 226).
    15. In the Army there are 129 appointments to the grade of major 
(list begins with James A. Adamec) (Reference No. 227).
    16. In the Army there are 26 appointments to the grade of major 
(list begins with Dennis R. Bell) (Reference No. 228).
    17. In the Army there are 157 appointments to the grade of major 
(list begins with Ronald J. Aquino) (Reference No. 229).
    18. MG Benjamin C. Freakley, USA to be lieutenant general and 
Commanding General, U.S. Army Accessions Command/Deputy Commanding 
General for Initial Military Training, U.S. Army Training and Doctrine 
Command (Reference No. 254).
    19. In the Air Force there are two appointments to the grade of 
lieutenant colonel and below (list begins with Jeffrey M. Klosky) 
(Reference No. 256).
    20. In the Army Reserve there is one appointment to the grade of 
colonel (Miyako N. Schanley) (Reference No. 257).
    21. In the Army there are 72 appointments to the grade of major 
(list begins with Anthony C. Adolph) (Reference No. 258).
    22. In the Army Reserve there are 26 appointments to the grade of 
colonel (list begins with Andrew W. Aquino) (Reference No. 259).
    23. In the Marine Corps there are two appointments to the grade of 
lieutenant colonel (list begins with Donald E. Evans, Jr.) (Reference 
No. 261).
    24. In the Marine Corps there is one appointment to the grade of 
lieutenant colonel (Jorge L. Medina) (Reference No. 262).
    25. In the Marine Corps there are two appointments to the grade of 
lieutenant colonel (list begins with Douglas M. Finn) (Reference No. 
263).
    26. In the Marine Corps there are three appointments to the grade 
of lieutenant colonel (list begins with Charles E. Brown) (Reference 
No. 264).
    27. In the Marine Corps there are four appointments to the grade of 
lieutenant colonel (list begins with Steven P. Couture) (Reference No. 
265).
    28. In the Marine Corps there are 94 appointments to the grade of 
colonel (list begins with Jonathan G. Allen) (Reference No. 266).
    29. In the Navy there is one appointment to the grade of commander 
(Mark A. Gladue) (Reference No. 268).
    30. In the Navy there is one appointment to the grade of captain 
(Terry L. Rucker) (Reference No. 270).
    31. In the Army there is one appointment to the grade of lieutenant 
colonel (Susan M. Osovitzoien) (Reference No. 273).
    32. In the Army there is one appointment to the grade of major (Tom 
K. Stanton) (Reference No. 274).
    33. In the Army there is one appointment to the grade of major 
(Evan F. Tillman) (Reference No. 275).
    34. In the Army there are three appointments to the grade of major 
(list begins with Michael A. Clark) (Reference No. 276).
    35. In the Army there are seven appointments to the grade of 
colonel and below (list begins with Edward W. Trudo) (Reference No. 
277).
    36. In the Marine Corps there are two appointments to the grade of 
major (list begins with Charles E. Daniels) (Reference No. 278).
    37. In the Marine Corps there is one appointment to the grade of 
major (Brian T. Thompson) (Reference No. 279).
    38. In the Marine Corps there is one appointment to the grade of 
major (Michael R. Cirillo) (Reference No. 280).
    39. In the Marine Corps there are two appointments to the grade of 
major (list begins with Vernon L. Dariso) (Reference No. 281).
    40. In the Marine Corps there are four appointments to the grade of 
major (list begins with Leonard R. Domitrovits) (Reference No. 282).
    41. In the Marine Corps there are nine appointments to the grade of 
major (list begins with Samson P. Avenetti) (Reference No. 283).
    42. In the Marine Corps there are seven appointments to the grade 
of major (list begins with Jason B. Davis) (Reference No. 284).
    43. In the Marine Corps there are six appointments to the grade of 
major (list begins with Darren L. Ducoing) (Reference No. 285).
    44. In the Marine Corps there are four appointments to the grade of 
major (list begins with Robert T. Charlton) (Reference No. 286).

    Total: 1,281

    [Whereupon, at 10:56 a.m., the business meeting adjourned 
and the committee proceeded to other business.]


 NOMINATIONS OF ADM TIMOTHY J. KEATING, USN, FOR REAPPOINTMENT TO THE 
 GRADE OF ADMIRAL AND TO BE COMMANDER, UNITED STATES PACIFIC COMMAND; 
 LT. GEN. VICTOR E. RENUART, JR., USAF, FOR APPOINTMENT TO BE GENERAL 
 AND TO BE COMMANDER, UNITED STATES NORTHERN COMMAND/COMMANDER, NORTH 
AMERICAN AEROSPACE DEFENSE COMMAND; AND LTG ROBERT L. VAN ANTWERP, USA, 
FOR REAPPOINTMENT TO THE GRADE OF LIEUTENANT GENERAL AND TO BE CHIEF OF 
  ENGINEERS/COMMANDING GENERAL, UNITED STATES ARMY CORPS OF ENGINEERS

                              ----------                              


                        THURSDAY, MARCH 8, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Bill Nelson, 
Pryor, Webb, Warner, Inhofe, Sessions, and Thune.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Joseph M. Bryan, 
professional staff member; Evelyn N. Farkas, professional staff 
member; Richard W. Fieldhouse, professional staff member; Peter 
K. Levine, general counsel; and Michael J. McCord, professional 
staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Derek J. Maurer, minority counsel; Lucian L. 
Niemeyer, professional staff member; Christopher J. Paul, 
professional staff member; Lynn F. Rusten, professional staff 
member; Robert M. Soofer, professional staff member; Sean G. 
Stackley, professional staff member; Diana G. Tabler, 
professional staff member; and Richard F. Walsh, minority 
counsel.
    Staff assistants present: Fletcher L. Cork and Kevin A. 
Cronin.
    Committee members' assistants present: Frederick M. Downey, 
assistant to Senator Lieberman; Christopher Caple, Sherry 
Davich, and Caroline Tess, assistants to Senator Bill Nelson; 
Todd Rosenblum, assistant to Senator Bayh; Jennifer Park, 
Gordon I. Peterson, and Michael Sozan, assistants to Senator 
Webb; Sandra Luff, assistant to Senator Warner; Jeremy Shull, 
assistant to Senator Inhofe; Mark J. Winter, assistant to 
Senator Collins; Clyde A. Taylor IV, assistant to Senator 
Chambliss; and Stuart C. Mallory, assistant to Senator Thune.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. Today, the 
committee considers the nominations of three distinguished 
senior military officers: Admiral Timothy Keating, the nominee 
for Commander, U.S. Pacific Command (PACOM); General Victor 
Renuart, the nominee for Commander, U.S. Northern Command 
(NORTHCOM) and Commander, North American Aerospace Defense 
Command (NORAD); and General Robert Van Antwerp, the nominee 
for Chief of Engineers and Commanding General of the U.S. Army 
Corps of Engineers. We welcome each of you, congratulate you, 
and we also welcome your families, who we will ask you--those 
of you who have family members with you--to introduce them 
later on because we know that the long hours and the hard work 
that is put in by our senior military officials requires 
commitment and sacrifice not only from those officials and from 
our nominees, but also from their family members, and we 
greatly appreciate their willingness to bear and share your 
burden and responsibility.
    Each of our nominees has served his country in the military 
for more than 30 years. Admiral Keating has served as Commander 
of the Fifth Fleet, Director of the Joint Staff, and Commander 
of U.S. NORTHCOM. General Renuart has flown more than 60 combat 
missions, has served as Director for Strategic Plans and Policy 
on the Joint Staff, and Senior Military Assistant to the 
Secretary of Defense. General Van Antwerp has served as 
Assistant Chief of Staff of the Army for Installation 
Management and Commandant of the U.S. Army Engineers School at 
Fort Leonard Wood. He has an even higher qualification, 
however. He is a native Michigander who grew up in Benton 
Harbor and St. Joseph and received his master's degree in 
engineering from the University of Michigan.
    If confirmed, each of our nominees will be responsible for 
helping the Department of Defense (DOD) face critical 
challenges. Admiral Keating, if confirmed, will take command of 
U.S. PACOM, the command which encompasses nearly 60 percent of 
the world's population and over half of the Earth's surface and 
includes six of the largest military forces, several of the 
biggest economies, and the two largest Muslim and democratic 
countries. This assignment comes at a time when we face complex 
challenges from China and North Korea as well as the continuing 
threat of terrorism in Indonesia, the Philippines, and 
elsewhere in the region.
    General Renuart, if confirmed, will take over U.S. 
NORTHCOM, the command which was established after September 11, 
2001, to provide for the defense of the United States and, when 
directed by the President or the Secretary of Defense, for 
providing military support to civil authorities. The mission of 
this command includes responding to natural disasters like 
Hurricane Katrina and manmade disasters such as incidents 
involving weapons of mass destruction here at home.
    Finally, General Van Antwerp will assume command of the 
Army Corps of Engineers. This command is responsible for both 
military works, including contracting for Iraq reconstruction, 
and civil works, such as repairing levees that have been 
damaged, destroyed, or unacceptably maintained in New Orleans 
and elsewhere.
    I know that our nominees are up to these challenges. They 
look forward to assuming these challenges and we look forward 
to having them answer some of our questions and then hopefully 
a prompt confirmation by the United States Senate.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman, and I agree that 
these are men of extraordinary ability. It is impressive, 
frankly, to see the educational level and the talent level we 
have throughout our military. I do not think it has ever been 
higher, but particularly in our general officers. They have had 
extraordinary experiences and education.
    So I welcome you here. I'm glad to see my former chairman, 
Senator Warner. I would be pleased to defer to him, but look 
forward to a few questions, Mr. Chairman. I think all of us are 
impressed with these nominees and we appreciate your leadership 
for America.
    Chairman Levin. Senator Warner, would you like to add 
anything?
    Senator Warner. No, thank you, Mr. Chairman. I know all 
these gentlemen quite well and we are fortunate as a Nation to 
have them and their families make this continued contribution 
to public service.
    Thank you.
    Chairman Levin. Before I call on you for any opening 
statement that you each might have and to introduce your 
families, let me ask you the standard questions which we ask of 
all nominees.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Admiral Keating. Yes, sir.
    General Renuart. Yes.
    General Van Antwerp. Yes.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Admiral Keating. No, sir.
    General Renuart. No, sir.
    General Van Antwerp. No, sir.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    Admiral Keating. Yes, sir.
    General Renuart. Yes, sir.
    General Van Antwerp. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Admiral Keating. Yes, sir.
    General Renuart. Yes, sir.
    General Van Antwerp. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Admiral Keating. Yes, sir.
    General Renuart. Yes, sir.
    General Van Antwerp. Yes, sir.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Admiral Keating. Yes, sir.
    General Renuart. Yes, sir.
    General Van Antwerp. Yes, sir.
    Chairman Levin. Do you agree to give your personal views 
when asked before this committee to do so, even if those views 
differ from the administration in power?
    Admiral Keating. Yes, sir.
    General Renuart. Yes, sir.
    General Van Antwerp. Yes, sir.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    Admiral Keating. Yes, sir.
    General Renuart. Yes, sir.
    General Van Antwerp. Yes, sir.
    Chairman Levin. Thank you.
    Now, Admiral Keating, let me call on you for an opening 
statement and introductions.
    Senator Warner. Mr. Chairman, could I ask that a statement 
by the distinguished ranking member, Senator McCain, be placed 
in the record following yours?
    Chairman Levin. It will be made part of the record. Thank 
you.
    [The prepared statement of Senator McCain follows:]

               Prepared Statement by Senator John McCain

    Thank you, Senator Levin. I join you in welcoming Admiral Keating, 
Lieutenant General Renuart, and Lieutenant General Van Antwerp, and 
their family members, and congratulating them on their nominations.
    Admiral Keating, you have had a distinguished career as a naval 
aviator, on the Joint Staff, and culminating in your assignment as 
Commander, U.S. Northern Command (NORTHCOM). Your nomination to be 
Commander of U.S. Pacific Command (PACOM) comes at a time of great 
challenge and opportunity in the Pacific area of responsibility. North 
Korea's nuclear and missile programs continue to pose a threat to its 
neighbors and to America's interests in East Asia.
    Last week's agreement might be a first step on the path to a 
denuclearized Korean peninsula, but that is far from certain. It is 
unclear whether North Korea is now truly committed to real 
verification, a full accounting of all nuclear materials and 
facilities, both plutonium- and uranium-based, and the full 
denuclearization that must be the essence of any lasting agreement. As 
we observe in the weeks ahead whether Pyongyang is taking initial steps 
toward disarmament and sealing its Yongbyon reactor, let us proceed 
cautiously. In the meantime, PACOM plays a vital role in providing 
stability and deterrence in support of this diplomatic effort.
    It also plays a critical role in sustaining and expanding the U.S.-
Japan strategic alliance, the cornerstone of our security umbrella in 
northeast Asia. PACOM and the Commander of U.S. Forces Japan must keep 
up the robust level of dialogue and ensure elements of our 
relationship, such as the Defense Policy Reform Initiative, are on 
track. There are a number of ideas circulating about the ways in which 
we can strengthen our already robust bilateral ties with Japan, and I'd 
note that the ``Armitage II'' report, which was recently released, 
addresses this in some detail.
    With respect to China, if confirmed, you will have the important 
task of taking the measure of a rapidly modernizing military. Cross-
strait relations are relatively calm at the moment, but history 
suggests that this delicate relationship, which remains at the core of 
U.S. interests in the region requires our close attention. Beijing's 
regional and global aspirations are growing, and properly managing this 
relationship is vital.
    Fortunately, the United States does not face these challenges 
alone. One of the vital responsibilities of the PACOM Commander is to 
work closely with our key allies in the region--Japan, South Korea, 
Australia, to name a few--to strengthen bilateral relations and to 
develop multilateral approaches and responses to the challenges and 
opportunities that we face in the U.S. PACOM.
    General Renuart, you have had an impressive career in the Air Force 
and in joint assignments, and I congratulate you on your nomination. 
U.S. NORTHCOM is now looked to as the military command that will defend 
against another attack on United States soil. If confirmed as Commander 
of U.S. NORTHCOM, you will be responsible for defending the Nation 
against attacks by hostile forces and for providing critical support to 
civil authorities in responding to domestic emergencies, terrorist 
attacks, and for designated law enforcement activities.
    As our Armed Forces contend with a rigorous tempo of operations 
abroad, the Commander of U.S. NORTHCOM must ensure that the command has 
the capability to perform its important homeland defense and civil 
support missions.
    General Van Antwerp, the Corps of Engineers is faced with an 
unprecedented level of interest and pressure from Congress and all 
Americans in the range of activities this Nation will ask you to carry 
out over the next 5 years.
    In reviewing your answers to this committee in preparation for this 
hearing, I am struck by the magnitude of your mission--providing 
emergency repairs to our national levee and dam systems which have 
suffered from years of neglect; responding to the engineering needs of 
our military commanders in Iraq and Afghanistan; and providing the 
facilities and infrastructure required for the United States Army to 
transform and grow its forces. I trust you will be a Chief of Engineers 
who will be able to accomplish all this while ensuring a transparent, 
competitive contracting environment provides our taxpayers with the 
best value in construction and services.
    I thank each of our nominees for their service and look forward to 
their testimony today.

    Chairman Levin. Admiral Keating.

STATEMENT OF ADM TIMOTHY J. KEATING, USN, FOR REAPPOINTMENT TO 
THE GRADE OF ADMIRAL AND TO BE COMMANDER, UNITED STATES PACIFIC 
                            COMMAND

    Admiral Keating. Mr. Chairman, distinguished members of the 
committee: It is a great honor to be nominated by the President 
to command the United States Pacific Command and I am grateful 
for his confidence and I appreciate the opportunity to appear 
before you this morning.
    With me this morning is a woman who brings so much joy to 
all of our lives, my wife Wanda Lee Keating. Who cannot be with 
us this morning, our son Daniel, who is an F-18 pilot, 
lieutenant commander in the Navy down at Virginia Beach, VA. 
With us, our daughter Julie and her husband, Commander Paul 
Camardella, he too is an F-18 pilot in Virginia Beach, and 
their daughter, our granddaughter, Lauren Joy Camardella. My 
brother Danby Keating is also with us.
    Mr. Chairman, I would like to ask our senior enlisted 
adviser, Sergeant Major Scott Frye, United States Marine Corps, 
to stand if I could Mr. Chairman, if it pleases you, I would 
like to recognize Sergeant Major Frye, who will retire at the 
end of this month, with 32 years of service to his Corps, our 
command, and our country.
    Thank you, Sergeant Major Frye.
    Chairman Levin. Thank you, Sergeant Major.
    Admiral Keating. In my current role, Mr. Chairman, as 
Commander of NORAD and NORTHCOM, I would also like to express 
my appreciation to your committee for your abiding support of 
our men and women in uniform. During my career I have enjoyed 
many deployments on our aircraft carriers to the western 
Pacific and the Indian Ocean. Wanda Lee and I lived in Hawaii 
during an earlier assignment at PACOM headquarters, and we 
lived in Japan for over 2 years while I had the privilege of 
commanding our forward deployed carrier battle group.
    During those years I have developed a keen appreciation for 
the vibrancy and complexity of this vast region. Today the 
healthy alliances, positive economic trends, and potential for 
U.S.-led regional cooperation make it clear to all of us that 
opportunity is abundant in the Pacific.
    Japan is a good example of a key United States alliance 
that benefits our Nation and the region. The U.S.-Japan 
relationship continues to mature and agreements such as the 
Defense Policy Review Initiative illustrate the progress we are 
making.
    PACOM's emphasis on the war on terror, on security 
cooperation with allies and partners, on the readiness and 
posture of our forward deployed forces, and on our operational 
plans seems appropriate to me. If confirmed, I intend to use 
these principles as the foundation during my tenure. I am 
committed to ensuring the men and women of the command are 
ready and are resourced to sustain peace and stability in the 
region and to contribute appropriately to U.S. global 
commitments.
    Finally, Mr. Chairman, if confirmed as Commander of U.S. 
Pacific Command, I will seek the counsel and insights of our 
allies, partners, and Members of Congress. I will collaborate 
with our ambassadors in the region to execute and advance 
United States policy goals throughout the Asia Pacific theater.
    Mr. Chairman, thank you and I look forward to your 
questions.
    Chairman Levin. Admiral, thank you. I know how much of her 
middle name your granddaughter brings to the family. Lauren 
Joy's middle name I am sure is very appropriate and we are 
delighted to have your granddaughter and her mother and her 
grandmother, as well as her grandfather--I never want to leave 
out grandfathers--here with us this morning.
    Admiral Keating. Thank you.
    Chairman Levin. General Renuart.

    STATEMENT OF LT. GEN. VICTOR E. RENUART, JR., USAF, FOR 
 APPOINTMENT TO BE GENERAL AND TO BE COMMANDER, UNITED STATES 
 NORTHERN COMMAND/COMMANDER, NORTH AMERICAN AEROSPACE DEFENSE 
                            COMMAND

    General Renuart. Thank you, Mr. Chairman, and members of 
the committee. I too am honored to be here today as the 
President's nominee to become Commander, NORAD, and Commander, 
U.S. NORTHCOM. If confirmed, I look forward to serving in these 
key critical roles.
    I appear before you knowing that the missions of both of 
these commands are demanding and that challenges are great. 
Having the homeland as the mission of NORTHCOM and NORAD is 
truly a sacred honor and it dictates adherence to the highest 
standards of vigilance, service, and integrity, and it is 
expected to be such by all of our citizens all of the time.
    Mr. Chairman, I would like to recognize the superb 
leadership of my good friend, Admiral Tim Keating, NORTHCOM's 
current commander. He has forged a really great team and leaves 
a legacy as he completes his tour and, I might add, big shoes 
to fill.
    But I look forward, if confirmed by the committee, to this 
challenge. My service on the Joint Staff and in the Office of 
the Secretary of Defense has reinforced the value of close 
working relationships among the combatant commands, the 
military Services, defense agencies, the interagency community, 
this committee, and Members of Congress, and, importantly in 
this job, the Governors and Adjutants General of the States 
across our country.
    If confirmed, I will join the men and women of NORAD and 
NORTHCOM in dedicating ourselves to the defense of the 
homeland. We will continue to work collaboratively with the 
other combatant commands. We will work closely with our Federal 
and State partners, our interagency partners, the National 
Guard, and the countries of Canada and Mexico, with whom we 
maintain a close relationship. We will continue to train hard 
to execute our mission and we will work hard to ensure that we 
never let the country down.
    Given the guidance of the President and the Secretary of 
Defense, it is a very challenging road ahead, but I look 
forward to the opportunity to travel that road.
    Mr. Chairman, I would be remiss if I did not publicly 
recognize my wife, Jill, present here today, for her nearly 36 
years of service to our Nation as a military spouse. We are the 
proud parents of two sons. Our oldest is a three-tour combat 
veteran of Afghanistan and Iraq, a combat rescue helicopter 
crew member; and our younger son has served the Nation for 27 
months in the Peace Corps and is currently a medical student at 
the University of Pennsylvania.
    Our military families bear a heavy burden during these 
difficult times and it is important always that we honor that 
commitment at every opportunity we have.
    Again, Mr. Chairman, thank you very much for the 
opportunity to appear here today and I look forward to your 
questions.
    Chairman Levin. Thank you, General.
    General Van Antwerp.

STATEMENT OF LTG ROBERT L. VAN ANTWERP, USA, FOR REAPPOINTMENT 
     TO THE GRADE OF LIEUTENANT GENERAL AND TO BE CHIEF OF 
   ENGINEERS/COMMANDING GENERAL, UNITED STATES ARMY CORPS OF 
                           ENGINEERS

    General Van Antwerp. Thank you, Mr. Chairman and members of 
the committee. I, too, am honored to appear before you today as 
the President's nominee for the Chief of Engineers and the 
Commanding General of the Corps of Engineers.
    This summer, I will have served 35 years as a soldier and 
as an engineer, 34 of those have been with my wife, Paula. She 
is not here today because she is with my granddaughter down in 
Florida. We have five children: two beautiful daughters, Julia 
and Catherine, and three sons. My oldest son, Jeff, is a major 
in the Army at West Point. He is an infantry guy. My next son 
is Luke and he is a Special Forces captain. Both of them just 
came out of Iraq recently for combat tours. My youngest son, 
Rob, is a Purple Heart recipient for what he sustained in 
combat in Iraq. He is doing well and he is settling near the 
Fort Campbell area.
    I am a registered professional engineer. I commanded an 
engineer battalion in combat, commanded the Los Angeles 
District during the Northridge earthquakes and the floods in 
Arizona, and commanded the South Atlantic Division of the Corps 
of Engineers. As you mentioned, Mr. Chairman, I was the 
installation manager for the Army and then I went and commanded 
one of those installations, so I got to grade my own paper. 
Finally, right now I am the Commanding General of Accessions 
Command, so I am responsible for recruiting and initial 
military training for the Army.
    The Nation looks to the Corps to meet the engineering needs 
of today and have the capability to meet those needs tomorrow. 
The Corps is deeply engaged, as you are all aware, now 
rebuilding the vital infrastructure in Iraq and Afghanistan and 
also in the reconstruction and renovation of the Gulf Coast.
    The integrity and professionalism of the Corps is essential 
to the confidence of the American people. If I am confirmed as 
Chief of Engineers, I will work closely with the 
administration, stakeholders, and Congress as I discharge my 
leadership responsibilities. I look forward to working closely 
with this committee and with other committees that have 
oversight in addressing the missions and challenges ahead. If 
confirmed, I pledge to provide strong and decisive leadership 
for the Corps in its important civil works and military 
missions.
    Mr. Chairman, that concludes my statement.
    Chairman Levin. I thank each of you and again your 
families, particularly those in your family who carry on the 
military service that you have so nobly and professionally 
followed in your own lives.
    Admiral Keating, let me begin with you. The Quadrennial 
Defense Review identifies China as a likely competitor. Is it a 
foregone conclusion that China and the United States would be 
at odds over security in the Pacific?
    Admiral Keating. I do not think it is a foregone 
conclusion, Senator.
    Chairman Levin. How do you believe we could minimize that 
possible outcome that nobody would like to see?
    Admiral Keating. If confirmed, I would intend to pursue a 
series of robust engagements with principally the People's 
Liberation Army of China, not just in terms of frequency but in 
terms of complexity. We would engage in exercises of some 
sophistication and frequency and we would pay close attention 
to the development of their weapons systems and their 
capabilities, with a weather eye on whether they intend to use 
those against Taiwan.
    Chairman Levin. Given the possibility of political or 
military miscalculation between China and Taiwan, what role do 
you think the United States military can play in trying to 
reduce cross-strait tensions?
    Admiral Keating. It goes to the heart of transparency, Mr. 
Chairman. I would say that if we deal with some frequency at 
several levels with the Chinese, if we exercise with them, all 
Services, if we ensure they are aware of our capabilities and 
our intent, I think we will go a long way to defusing potential 
strife across the Straits of Taiwan.
    Chairman Levin. Relative to the Philippines, Admiral, our 
military mission in the southern Philippines since 2001 has 
been aimed at helping the Philippine military to defeat the Abu 
Sayyaf group and to deal with other terrorist groups. Your 
predecessors have assured this committee that, ``U.S. 
participants will not engage in combat,'' in the Philippines, 
without prejudice, of course, to their right of self-defense. 
Are you committed to continuing that policy?
    Admiral Keating. Yes, sir.
    Chairman Levin. I have one other question on that relative 
to the Philippines. During hearings before this committee, 
General Myers, Admiral Fargo, and Admiral Fallon stated that 
U.S. troops would conduct training at the battalion level and 
assured us that if there were a decision for U.S. teams to work 
at the company level that this committee would be notified, and 
they have kept their word. Is that your intent as well?
    Admiral Keating. Yes, sir.
    Chairman Levin. Thank you.
    Relative to Korea, Admiral, give us your assessment, if you 
can, from your perspective of the agreement that we apparently 
reached with North Korea last month?
    Admiral Keating. From what I know, Mr. Chairman, it is 
positive and beneficial. We need to have the access to verify 
North Korea is upholding their side of the agreement, if you 
will. But it appears to be a positive step toward 
denuclearization of the peninsula, and that would lead to 
stability and peace on the peninsula and that is a worthwhile 
goal.
    Chairman Levin. General Renuart, NORTHCOM has operational 
responsibility for the ballistic missile defense of the United 
States. One of the concerns that we have is that deployed 
ground-based midcourse defense systems show that they are 
operationally effective and reliable. Do you agree, first of 
all, that it is essential that any ground-based system be 
operationally effective and reliable?
    General Renuart. Mr. Chairman, yes, sir, I do.
    Chairman Levin. If you are confirmed and you learn or 
believe that this system is not operationally effective and 
reliable, will you take prompt steps to inform the committee?
    General Renuart. Yes, sir, I will.
    Chairman Levin. Do you agree that it is important that we 
use operationally realistic flight tests to demonstrate the 
operational capability of the ground-based system?
    General Renuart. Yes, sir, I do.
    Chairman Levin. If confirmed, will you work with the 
Director of Operational Test and Evaluation to understand his 
view of the operational capability and any limitations on the 
ground-based midcourse system?
    General Renuart. Mr. Chairman, I will do that.
    Chairman Levin. One of the problems, General Renuart, that 
we had before the September 11 terrorist attacks was a lack of 
information-sharing among relevant Government agencies. 
Congress addressed this problem in our intelligence reform 
legislation in 2004 and we want to ensure that information is 
being shared as needed to protect our Nation against 
terrorists.
    Now, I understand that NORTHCOM withdrew its representative 
to the National Counterterrorism Center (NCTC) last year 
because NORTHCOM and the Defense Intelligence Agency (DIA) 
found that it was just too hard to get information and 
cooperation from the NCTC. It sounds like an unacceptable 
situation and it is a problem that would need to be fixed.
    If confirmed, how do you plan to address this problem and 
to ensure that there is good information-sharing and 
cooperation between NORTHCOM and the NCTC?
    General Renuart. Mr. Chairman, thank you for that question 
because it is critically important that we have the right 
amount and level of intelligence sharing among all the relevant 
agencies. I am aware of the move a few months ago to withdraw a 
portion of the intelligence elements that were assigned from 
NORTHCOM and the DIA. I am aware also that General Maples, the 
Director of the DIA, has undertaken now a process to put that 
back in place, and if confirmed, I will continue to press hard 
for that because I believe that is critically important. The 
NCTC really is one of those opportunities we have for 
transparency among the Intelligence Community.
    Chairman Levin. Thank you.
    My time has expired.
    Senator Sessions.
    Senator Sessions. Admiral Keating, thank you for your 
service. You were NORTHCOM Commander, which General Renuart 
will soon be taking over. In that capacity, you had the 
responsibility to manage and launch, if need be, our ground-
based missile defense system; is that correct?
    Admiral Keating. That is correct, sir.
    Senator Sessions. On July 4, the North Koreans announced or 
we identified their launch and saw their launches occur, which 
ended up not to threaten the United States. In your opinion, 
were we capable of executing a launch of our missile defense 
system that, had they had a missile that could have reached the 
United States, we could have knocked that down?
    Admiral Keating. We were capable. We had exercised and we 
were ready that day, Senator.
    Senator Sessions. So you were actually prepared to launch, 
if need be, and had confidence that, even though we were early 
in the process, had a missile threatened the United States, it 
could have been knocked down?
    Admiral Keating. It is a small point, Senator. The short 
answer is yes, sir. I would not have been the authorizing 
official that day. The Secretary of Defense was on the line 
with us, so I am confident it would have been his decision. But 
we were prepared to launch if he had given us the direction.
    Senator Sessions. Do you think that experience will be 
valuable to you as you, in the Pacific, deal with the theater 
missile defense systems that we have on so many of our ships 
and other areas?
    Admiral Keating. Most assuredly, yes, sir.
    Senator Sessions. General Renuart, you made a comment about 
our testing of last year, September I believe, the last major 
test that we had. It was a successful operational test. How 
would you evaluate the complexity of that test and its validity 
as to establishing that we have a system that will actually 
work?
    General Renuart. Senator, I am far from an expert on the 
technical aspects, but I was able to observe from my position 
within the Joint Staff. It is my view that the capabilities of 
the system evident in that test would allow us, as Admiral 
Keating mentioned, to be effective against a North Korean type 
threat.
    I think it is important to ensure that if we are going to 
fully field the system that we ensure that it has the 
capability to be effective against some variety of threats. 
Clearly it is not an umbrella and I, if confirmed, will 
continue to work for an active operational test process as we 
continue to field the system.
    Senator Sessions. I agree. I think for a lot of people, 
they may not have realized just how much good work has been 
done for quite a number of years that would bring us to the 
point of being able to knock down an incoming missile. It is 
hard for most of us to believe that is possible, but once again 
you say it is. We have seen the tests that have been 
successful. This last test was a very realistic, whole entire 
system test. I think that is important.
    General Renuart, as NORTHCOM Commander, you explained to me 
as we chatted about your belief that you need to relate 
effectively with the National Guard. Would you explain your 
mission with regard to homeland security and how you envision 
your relationship with the Guard and Reserve?
    General Renuart. Thank you, Senator. I think it is 
important to understand that in NORTHCOM--its mission 
principally is to provide support initially to State and 
Federal agencies as they respond to disasters that might occur 
throughout the country. But when directed by the President or 
the Secretary, we could assume a more active role. So it is 
important to ensure that on a day-to-day basis NORTHCOM has 
good visibility as the principal combatant command on the 
readiness of potential forces that could come to it from both 
the Active and the Reserve component, the command must also 
understand carefully how the individual States view their 
capabilities to respond to a disaster or an emergency; and 
given that information, then maintain a close relationship with 
the States, the Guard, and the Active component to ensure that 
we do have the tools to connect, communicate, and be effective.
    Senator Sessions. Thank you and I look forward to your 
service and working with you in that regard.
    General Van Antwerp, the Corps is an important part of our 
Nation's defense and really civil strength. You have a 
tremendous background and I know you are going to be successful 
in that office. I appreciate the opportunity to chat with you 
recently. I am glad to know that you do not feel you have a 
legal mandate to write any new manual at this point and that 
you understand the sensitivity of the water situation between 
the three States in the southeast. Our Governors are working 
hard to get an agreement that would be wonderful, and I believe 
they can do that and I think it is important that the Corps of 
Engineers be a neutral but supportive agency in that process. 
Would you agree with that?
    General Van Antwerp. I agree, Senator.
    Senator Sessions. General Van Antwerp, tell me about, 
briefly if you would, how much the Corps has contributed to 
Iraq and Afghanistan? I have a very positive impression of 
their effectiveness. I believe they responded, maybe because of 
their military association and background, in great ways in 
those countries, and wonder if there is a possibility in the 
years to come that we might expand the Corps in a way that 
could help us in these kind of rebuilding efforts, these 
nation-building efforts or stability operations that might 
occur around the world.
    Have you had any thoughts about that?
    General Van Antwerp. Yes, sir, I do agree. I think the 
Corps has contributed greatly. We have the Gulf Region Division 
with four different elements of it. We have the northern, 
central, and southern divisions, and there is an Afghani 
district. They have done wonderful things. What I know is, of 
the 4,500 projects in Iraq totaling about $8 billion, that the 
Corps has executed 3,400 of those already. Another 900 are in 
construction and 200 are in planning and design, so moving well 
on their way to completing those. So the Corps has contributed 
very much.
    To your second part----
    Senator Sessions. How much of that do you utilize Iraqi or 
Afghani contractors or workers that you supervise, rather than 
just do the work yourselves?
    General Van Antwerp. That is an excellent question. Today 
about 75 percent of the contracts I am told are with Iraqi 
contractors and their employees. So the supervision over it is 
by the Corps of Engineers, but many of the contractors, the 
majority, are Iraqi contractors today.
    Senator Sessions. I interrupted you, I think.
    General Van Antwerp. Senator, I was just going to address 
the second issue of how do we prepare for this for the future, 
how do you make sure there are enough emergency management 
people and people that could respond quickly. I think it means 
you have to keep the expertise in the Corps to do that, and 
then you have to have some ability to have people that are 
tracking and watching that could deploy without degrading the 
rest of your work that you are doing elsewhere.
    I think it is something that we need to look at in the 
future, for other contingencies how do we have that group of 
young people that can get there quickly and get it moving on 
the ground.
    Senator Sessions. Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Gentlemen, we have always known that the military families 
are the ones that provide so many of the young men and women 
who continue to follow your careers in the military. But I 
cannot recall, Mr. Chairman, when we have had three before us 
with more outstanding contributions than each of you men in 
that. So I again join the chairman and others in commending you 
and your respective spouses for providing much-needed quality 
talent for our Armed Forces.
    Admiral, it is just a pleasure to see you advance to this 
position. I think it is no secret for those of us who have had 
associations with the United States Navy, it is a tossup 
between every officer's desire to be in the position to which 
you have been nominated by the President or Chief of Naval 
Operations. I will not ask you which you prefer because you are 
going to get this one. [Laughter.]
    Admiral Keating. My wife has what is called the peanut 
butter theory, Mr. Secretary. She says: Put peanut butter in 
your mouth, put your tongue against the peanut butter, and do 
not talk.
    Senator Warner. That is correct. Good advice.
    The chairman asked you some questions on North Korea. I 
would like to follow up. Apparently the President of South 
Korea most recently said that the two nations, if this current 
detente with North Korea goes forward and we are able to 
achieve the goals that the Six-Party Talks laid down, I mean 
all the goals, would like to see the exploration of a peace 
treaty to replace the armistice which has been in effect since 
1953. It is hard to believe that for over a half century we 
have not been able to forge a treaty to once and for all put to 
rest that conflict.
    Have you had an opportunity to explore that, and do you 
have any initial thoughts on the advisability and how it would 
impact on the need to continue certain security relationships 
with South Korea even if a peace treaty were put in place?
    Admiral Keating. Senator, I have not gone into that in any 
detail with either Admiral Fallon, his staff, or General Bell 
and his staff. If confirmed, that would be something we would 
clearly devote considerable interest to if our State Department 
were able to table the issue. I am hardly opposed to it, but, 
as you say, we have been in an armistice situation for half a 
century and it would take some very prudent discussions within 
our Government and with our allies in South Korea to go forward 
with such a consideration.
    Senator Warner. I'm going to let Senator Inhofe go ahead of 
me.
    Senator Inhofe. Senator Warner, I appreciate it very much. 
I just received a notice I have to go to another committee. 
There are a couple of things real briefly if I could just 
mention----
    Senator Warner. Go ahead, take your time.
    Senator Inhofe. First of all, General Renuart, Senator 
Sessions was talking before we came in, so I do not know how 
far you got into this. I have talked to you about this, 
personally I think one of the greatest responsibilities you are 
going to have is the ballistic missile defense. I just guess I 
would ask you if you believe that we are adequately at a level 
that is a comfort level for you in terms of threats from North 
Korea, China, Russia, or wherever they might come from?
    General Renuart. Senator, I would be careful to say at a 
comfort level because I am still really just learning all of 
the breadth of the capability. If confirmed, I would really 
dive into that in much greater detail. But my initial 
impression is that, and based on the capabilities that we saw 
over the July 4 weekend when we had the intention to defend, I 
think we have a very good capability for the threat we see 
today, but I think that threat is growing and it is important 
to continue the testing to ensure that the system when fielded 
is capable of meeting all the goals.
    Senator Inhofe. What I would like, and I know Senator 
Sessions and maybe some other members of this committee, have 
always been very interested in this. When you are entrenched, 
when you get in there and have a chance for a total evaluation, 
just come forth, be very honest with us as to what resources 
you need, because I think that is one of the greatest threats 
that we have out there.
    By the way, Senator Warner and I were talking about all 
three of you having kids in there and you, General Van Antwerp, 
with three, and one was injured. We are just very proud of you. 
To me, I look at the three of you and I think of that as being 
kind of an American tradition that goes from generation to 
generation. We are very proud.
    With the 92,000 or so increases that are going to be coming 
in the new combat units, you are going to have to have new 
support. Are you satisfied with the resources and of being able 
to accommodate that?
    General Renuart. I am sorry, Senator? For me?
    Senator Inhofe. No, I am talking about General Van Antwerp 
right now.
    General Van Antwerp. Accommodate?
    Senator Inhofe. The new responsibilities that come with the 
increased number of combat units that are going to come with 
the 92,000 increase.
    General Van Antwerp. Right. The Army's portion of that is 
65,000, and part of that is in our restationing plan. Of course 
you have to have the facilities and everything that goes with 
this, and it is very much linked with base realignment and 
closure as far as movement of people. But we do have a plan for 
the stationing of all those units and the building of those 
units through 2012.
    Senator Inhofe. I want you to repeat the numbers that you 
used in response to Senator Sessions' question. I was kind of 
impressed with that when you talked about the number of 
projects and the amount of money and where you are with that.
    General Van Antwerp. This is in Iraq. The Corps was 
assigned 4,500 projects for the tune of about $8 billion. Thus 
far they have completed 3,400 of those projects. Then the rest 
of them, there are 900 projects that are under construction and 
another 200 projects that are in some stage of planning and 
design.
    Senator Inhofe. Using the Iraqis for a lot of this work?
    General Van Antwerp. Right, for about three-quarters of it.
    Senator Inhofe. The only other thing I wanted to--and I 
told General Keating I would do this--we have been very active 
in both the International Military Education and Training 
(IMET) program and the section 1206 and 1207 train and equip 
programs. The IMET program at one time had the restriction on 
it, which we have now lifted, because we were assuming that the 
international officers were the ones who were benefiting from 
such a program. It appears to me as I see people coming over 
here in droves for training that is the best money that we can 
spend, particularly in your new area of responsibility.
    I would like to know your level of interest with the IMET 
program and also the train and equip program, because that will 
continue to be a discussion of this committee.
    Admiral Keating. Senator, we are vitally interested in the 
IMET program. Since our discussion, we went back and there are 
over 20 heads of service or chiefs of defense who are in 
position or who have recently retired in foreign militaries who 
have attended just the National War College. That is a dramatic 
dividend on a relatively small investment. The understanding of 
tactics, techniques, and capabilities that is developed as 
those officers attend our school is profound.
    As far as train and equip, you have given PACOM the 
authority, in collaboration with the State Department, to 
expend money in a fairly short timeline to countries in the 
particular area of maritime security, Malaysia and Sri Lanka. 
The benefits of that investment can perhaps be measured by 
Lloyd's of London reducing premiums for ships transitting the 
Straits of Malacca from wartime premiums to something below 
that. We think that is a direct reflection of the investment we 
have made under section 1206.
    Senator Inhofe. I can only say, and I say this also to my 
friends on the committee, that if we do not really utilize the 
advantages that come with an IMET program, China is doing it.
    Admiral Keating. Right.
    Senator Inhofe. They have an exhaustive program right now 
that--I would just like to beat them to the punch.
    Senator Warner, thank you for allowing me to infringe upon 
your time.
    Senator Warner. No, not at all. I am going to be here 
throughout the hearing.
    I want to associate myself with my distinguished 
colleague's support for the IMET program. All of us who have 
had many years on this committee--and the three here have been 
here for a couple of decades--recognize as we travel and visit 
other nations, which is our responsibility, particularly on the 
Armed Services Committee, how proud some of these foreign 
officers are to step up and say: I am a product of America's 
IMET educational system. It is a sense of confidence that we 
have in that officer and his ability to hopefully strengthen 
the ties between his nation or her as the case may be, and the 
United States.
    Senator Inhofe. I would say particularly now also in 
Africa, they are so proud to be a product. It is a great 
program.
    Senator Warner. Senator, there is no one here that has 
logged more time traveling in those distressed areas of Africa 
than you.
    Mr. Chairman, I think I will pick up if I may. One of your 
colleagues appeared, but then disappeared.
    Chairman Levin. Please.
    Senator Warner. Admiral Keating, your predecessor worked 
very closely with the committee through the years and we 
anticipate no less on your part. But one of the things that I 
always admired was his initiatives to do the proactive approach 
to advancing U.S.-Chinese military-to-military relations. This 
is extremely important, particularly as China now is, in a very 
strong and forceful way, increasing its military capabilities 
and spreading its influence throughout the world.
    I look back on the days when we were dealing in the Cold 
War and we always had the feeling that the senior military and 
the Soviet Union at that time were individuals that would 
carefully think through all options for initiating certain 
actions, most particularly anything related to the strategic 
use of those assets. I just hope that you will carry on in that 
context.
    Do you feel there is an opportunity to pick up where he 
left off and expand?
    Admiral Keating. You bet, Senator. A huge potential here 
and, if confirmed, we will do our best to capitalize on that 
opportunity.
    Senator Warner. In the most intense chapters of the Cold 
War, there was always a sense of confidence in the quality, the 
ability, and the judgment of the senior military. We simply, at 
least from my perspective, I do not know that we have that 
insight into China. There seems to me such a veil of secrecy 
and withdrawal that it is going to take some forceful 
initiatives on your part.
    Which brings me to, when you and I visited most recently we 
talked about the history of the Incidents at Sea, the agreement 
that we have between, in this case, the Navy of the United 
States and the navy of the former Soviet Union. Currently that 
agreement is still in effect, because there was a tragic event 
when we had the clash of the aircraft and that confrontation. 
Had that framework been in place, I think we would have been 
able to work our way through that situation more expeditiously, 
and indeed we may well have prevented it, because that concept 
of agreement is to recognize the potential and the requirement 
of both militaries, to do surveillance, but do it in a way that 
those assets, be they ships or aircraft, are not likely to have 
actual contact and confrontation.
    Will you continue to take a look at that?
    Admiral Keating. Yes, sir. If confirmed, we will undertake 
an aggressive, but measured and reasonable, approach as we can 
to the senior military leadership, and not just the senior 
military leaders, but at as many levels as we can with the 
Chinese military, and it goes to IMET, so as to develop 
relationships, an understanding, and a common bond and to 
continue the exercises that PACOM has underway. They have done 
two search and rescue exercises within the past couple years. 
As you say, Senator, those would likely have led to a different 
outcome of the EP-3 incident if it were to occur now, and it is 
unlikely that it would occur.
    Senator Warner. General Renuart, this committee had a great 
deal to do with the establishment of the legislation which 
created the 55 Weapons of Mass Destruction-Civil Support Teams 
to ensure that each State and territory of the United States 
has at least one team. Some of the larger States have more than 
one. To date 47 of these teams have been certified by DOD as 
mission capable. States will also depend on the National Guard, 
the chemical, biological, radiological, nuclear high yield 
explosive (CBRNE) enhanced weapons response force package, and 
the CBRNE Enhanced Response Force Package teams available to 
each in the Federal Emergency Management Agency (FEMA) areas.
    You are going to pick up from Admiral Keating and we are 
fortunate today that he is present, because we know full well 
of the achievements that he had. But I do hope that you 
continue to provide strong support for these concepts.
    For those following this hearing, all these acronyms are 
confusing, but these are teams that can come in and work with 
the local community with regard to the first response on an 
incident which is hard to ascertain exactly how it imperils the 
local citizens and the first responders, particularly chemical, 
biological incidents. It is just not possible for each of the 
States to have all the complex equipment that can go in, and 
can go in on the spot and make the necessary analysis.
    So I do hope that is one of your high priorities as you 
proceed.
    General Renuart. Yes, Senator, it will be, and if 
confirmed, we will continue to pursue the funding and the 
training and equipping of all of those units.
    Senator Warner. Mr. Chairman, I will return in a second 
round.
    Chairman Levin. Thank you.
    By the way, Admiral Keating, I think you are probably aware 
of this fact, that Senator Warner is an expert on literally 
negotiating agreements and treaties on incidents at sea or 
otherwise to deconflict or avoid conflict with countries with 
whom we are truly adversaries. He personally negotiated the 
Incidents at Sea Treaty with the Soviet Union. I believe he was 
Secretary of the Navy at that time. It is one of the many proud 
moments in his career. But if you want some advice as to the 
wisdom and the methods of such discussions, you are looking at 
an expert right here.
    Admiral Keating. We are aware, Senator.
    Chairman Levin. Thank you very much.
    Senator Warner. I thank the chair. Days long past.
    Admiral Keating. The agreement is still in place.
    Chairman Levin. It was a great moment, and I have been in 
his office and there is, as I remember, a picture or a plaque 
on the wall about that event.
    Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Generals and Admiral, I enjoyed my visit privately with 
each one of you and would only reemphasize here in open session 
some of the things that I had discussed with you when we 
visited earlier. General Renuart, you know the concerns that we 
have with regard to the National Guard when there is a major 
natural disaster such as a hurricane. I can tell you that our 
Florida Guard is experienced and they know what to do, and 
NORTHCOM should not be coming in there and telling them what to 
do, which is part of the problem that we got into over in 
Louisiana with Hurricane Katrina.
    You were very receptive to those ideas about letting the 
experts make decisions instead of somebody coming in and 
telling the experts how they should do it and then getting all 
balled up.
    Admiral Keating, you clearly have quite a challenge in your 
area of responsibility with North Korea, and hopefully the 
first little step of progress that we have seen is going to 
bear more fruit. If China will concentrate more, instead of 
putting a bunch of space debris through their anti-satellites, 
threatening everybody's satellites, everybody's in the world, 
and instead concentrate more on using their friendly persuasion 
with North Korea to at the end of the day do what China wants, 
which it does not want a nuclearized Korean peninsula, then 
that is all to the good for the entire world. That is in your 
bailiwick.
    General Van Antwerp, congratulations on your success in 
recruiting. I hope under these difficult circumstances it is 
going to continue. Now, of course, you and I visited about the 
Everglades restoration, which is so critical, not only to 
Florida but to the delicate environmental balance throughout 
the world.
    I would just point out one other thing that I did not get 
to point out in our personal conversation. It is particularly 
acute in Florida, where in the Florida Department of 
Environmental Protection, they have a permitting process. It is 
almost exactly a mirror image of the same permitting process of 
the Army Corps of Engineers. As a result, what you get is a 
great deal of frustration by someone seeking a permit, that 
they go through all of this and then they go and do the very 
same thing with you, and where the two of you administratively 
can combine the efforts, since at the end of the day what we 
are trying to do is protect the environment, but make that 
administrative process an easier one, not a more relaxed one, 
just a more administratively smooth one.
    It is going to take somebody like you making sure that the 
folks down the line are doing it. Now, your new colonel down 
there in Florida, Colonel Grosskrueger, is sensitive to this 
and if you would give some signals from up high on Mount 
Olympus I think that would be very much appreciated.
    The other problem that we have in a growth State like 
Florida--and by the way, all my colleagues just could not 
believe it when I told them. I said, ``do you know what the 
number of new registered voters between the two presidential 
elections are in Florida, between 2000 and 2007?'' My 
colleagues in the Senate could not believe me when I told them 
it was 3.9 million new registered voters within a 4-year 
period.
    That is the kind of growth that we have going on, and that 
is just reflective in registered voters. We are getting a net 
growth of close to 400,000 per year. In 2012, Florida will 
overtake New York and become the third largest State.
    General, you do not have enough people in the Jacksonville 
District to handle this growth, and as a result there are 
delays and frustrations. Your people are working just as hard 
as they can work. They are great public servants. They just 
need some more in a growth State that is highly environmentally 
sensitive like Florida.
    Mr. Chairman, I had a wonderful visit with all three of 
them and that would be my additional exclamation point. Thank 
you.
    Chairman Levin. Thank you, Senator Nelson.
    General Van Antwerp. Thank you, Senator.
    Chairman Levin. Senator Thune.
    Senator Thune. Thank you, Mr. Chairman. I want to thank our 
distinguished panel for your service to our country and for 
your continued service and I look forward very much to getting 
you into these new posts and positions and to the good work 
that you will do there. Let me just add a couple questions.
    Admiral Keating, I would like to follow up on--and this 
line of questioning maybe has already been pursued this 
morning, but with regard to China. China is investing a vast 
amount of resources into its naval capabilities and I am 
interested in knowing, if confirmed as PACOM commander, what 
steps you will take to ensure that U.S. forces in the Pacific 
region can meet these threats, particularly the threat from 
China's growing submarine fleet.
    Admiral Keating. Sir, if confirmed, we will continue 
PACOM's current policy of paying very close attention to 
China's development. In gross numbers it is impressive; in 
percentage of their budget, if reports are fairly accurate. 
They are well behind us technologically. We enjoy significant 
advantages across the spectrum of defensive and offensive 
systems.
    In particular, undersea warfare is an area of concern. We 
will pay close attention to it, if confirmed. I have had the 
pleasure of cruising throughout those waters on considerable 
regularity in my earlier career, Senator, and I can assure you 
that we are not unfamiliar with the challenges and we have 
significant advantages now and we are not going to yield those 
advantages.
    Senator Thune. A question for General Van Antwerp and this 
has to do with, there are two divisions dedicated to the war 
effort. One is the Gulf Region Division, which is focused on 
rebuilding operations in Iraq, and that was activated in 
January 2004; and the other is the Afghanistan Engineer 
District, which was activated in March 2004. One of the many 
projects the Corps is involved in is the award of several 
contracts for repair of Iraq's oil infrastructure.
    How has that contract that was awarded in 2004 improved the 
production of oil in Iraq?
    General Van Antwerp. Senator, I am going to have to study 
that. That is a great question. I am familiar with the 
contracts in that, but as far as the improvement that they have 
made, I will have to take that and get back to you. But I 
certainly would study that and, if confirmed, that would be a 
priority, to get into those contracts and what their production 
is, because in the end game that is what it is all about.
    Senator Thune. I appreciate that and if you could answer it 
for the record it would be great, because that is such an 
important part of our success there, making sure that the oil 
infrastructure is intact, they are able to produce, and then to 
divide oil revenues in a way that enables each of the various 
sections of the country to prosper. That clearly is a focus of 
our strategy there at the current time and I am just curious to 
know to what extent the work that has been done there may have 
aided in moving that process along.
    [The information referred to follows:]

    The purpose of the oil infrastructure program in Iraq was to 
restore production capability existing prior to Operation Iraqi 
Freedom. At the beginning of the Iraq Relief and Reconstruction Fund 
(IRRF) Oil program, a goal of 3 million barrels per day (MBPD) 
production capacity was set and projects were selected that would 
support achievement of that goal. Key projects included providing 
materials for 20 Gas Oil Separation Plants, refurbishment of an 
offshore export terminal, and an oil well logging and work-over 
program. This investment of capital, while minimal in terms of what is 
needed on an annual basis to maintain consistent oil production, has 
allowed the production of oil and associated gas to be maintained at a 
reasonable level until Iraq can execute the level of investment 
required to increase its annual output of crude oil and associated gas.
    As the Gulf Region Division Oil Sector Reconstruction program 
concludes in May 2007, it is my understanding that the 3 MBPD capacity 
objective will be achieved. However, I also understand that this 
capacity is not yet reflected in actual crude oil production volume, 
which is currently in the range of 2.1 MBPD. This is due primarily to 
the interdiction of a crude oil stabilization plant in the north and 
repeated interdiction of the Iraq-Turkey export pipeline by insurgents. 
Even though the capability to produce 3 MBPD is expected to be 
achieved, actual production will only reach this level when the 
Government of Iraq is successful in curtailing the insurgent activity 
that affects the transport of the crude oil out of Iraq.

    Senator Thune. Thank you very much, gentlemen, for your 
service. I look forward to getting you confirmed.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Thune.
    Let me pick up now on a second round of questions. First, 
General Renuart, one of the lessons from Hurricane Katrina was 
the need for better planning, coordination, and integration 
among NORTHCOM, the National Guard, and the Federal and State 
emergency response agencies in the event of a domestic 
disaster. We saw delays and confusion among State and Federal 
officials that made a horrible situation even worse.
    How would you have NORTHCOM improve the planning and 
coordination among the various Federal and State response 
entities in the event of a domestic disaster, so we do not have 
a repeat of the post-Katrina problems?
    General Renuart. Mr. Chairman, in the aftermath of all that 
there was a great deal of effort put to the lessons learned 
process to try to determine where there were seams and gaps 
among all the participants. I know Admiral Keating had in 
preparation for last year's hurricane season put in place a 
very detailed review, a process of creating pre-scripted 
mission orders, if you will, for all of the responding 
agencies, prepositioning equipment in key areas in the 
southeast such that they can be used on short notice and 
brought to bear.
    I think all those efforts are critically important. I know 
NORTHCOM has just completed a similar preparation process for 
this hurricane season and, if confirmed, I am completely 
committed to continuing that effort, with a special effort on 
the command and control communications such that they are 
interoperable, not just among the Guard and the Active Force, 
but among the various Federal agencies who would respond. I do 
know that there has been some effort in that regard already and 
we would continue to do that.
    Chairman Levin. Thank you.
    General Van Antwerp, the Army Corps' handling of a large 
contract with Halliburton for the reconstruction of the Iraqi 
oil industry has been widely criticized. Before the war, 
Halliburton was given the assignment to study the Iraqi oil 
industry without competition under an existing contract. The 
Army Corps then awarded Halliburton a sole source contract with 
a value of up to $7 billion over a period of up to 5 years.
    The senior contracting official for the Army Corps was so 
disturbed by that contract award that she wrote a note on the 
approval document itself cautioning against extending the 
contract beyond a 1-year period.
    Now, in your responses to pre-hearing questions you agreed 
that ``competition is the very foundation of government 
contracting and in general the term of a contract awarded under 
the urgent and compelling exception to competition should not 
ordinarily exceed the time reasonably required to award a 
follow-on contract.''
    A 5-year contract--does that not exceed the ``time 
reasonably required to award a follow-on contract''? Would you 
make every effort, if confirmed, to ensure that the Corps 
avoids awarding sole source contracts of comparable duration in 
the future?
    General Van Antwerp. Senator, those are great points. As I 
stated in my response there, I do believe in competition. I 
think it is what gives you best value. I think there are times 
when you need a bridging contract, an early one, but I agree in 
concept with the timelines established there.
    Chairman Levin. Established where?
    General Van Antwerp. Established that it should be a short 
duration and then as soon as possible and practicable you ought 
to go and do a competitive bid.
    Chairman Levin. Thank you.
    You stated, General Van Antwerp, in response to the pre-
hearing questions, that you were not aware of major failures of 
the Army Corps contracting for reconstruction and relief in the 
wake of major hurricanes in 2005. I recognize you are not 
personally responsible for the particular contracting I am 
going to ask you about. But there were press reports that 
described several cases in which work was passed down from the 
Army Corps to a prime contractor, then to a subcontractor, and 
then to another subcontractor, with each company charging the 
government for overhead and profit, before finally reaching the 
company that would actually do the work.
    In one such case the Army Corps reportedly paid a prime 
contractor $1.75 per square foot to nail plastic tarps onto 
damaged roofs in Louisiana. That is $1.75 a square foot. The 
prime contractor paid another company, a subcontractor, 75 
cents to do that same work, per square foot that is. The 
subcontractor then paid a third company 35 cents per square 
foot to do the work, and that subcontractor reportedly paid yet 
another company 10 cents per square foot to do the work.
    In a second such case, the Corps reportedly paid prime 
contractors up to $30 a cubic yard to remove debris and the 
companies that actually performed the work were paid from $6 to 
$10 a cubic yard.
    So would you agree that it would be a contracting failure 
if the Corps paid $1.75 per square foot for work that cost only 
10 cents per square foot to perform?
    General Van Antwerp. Sir, I would agree in concept with 
your supposition there. I also believe that if there is proper 
competition that it will eliminate a lot of that tiering. So 
again, it goes back to that competition is very important.
    Chairman Levin. Would you take strong action, if confirmed, 
to ensure that the Corps does not pay such excessive pass-
through charges in the future?
    General Van Antwerp. I will, sir.
    Chairman Levin. I just have one additional question and 
then I will be done. I do not want to go over my time, Senator 
Warner.
    Senator Warner. Why don't you go ahead?
    Chairman Levin. Thank you very much. One of the great 
challenges in the Great Lakes for the Corps is the dredging 
that is done in the Great Lakes and the significant backlog of 
dredging that exists. The Corps estimates a backlog of 16 
million cubic yards at commercial harbors that need to be 
dredged and that backlog is expected to cost about $192 
million. It has had real impacts on our shipping. Several 
freighters have gotten stuck in Great Lakes channels. Ships 
have had to carry reduced loads and many shipments have just 
simply ceased altogether.
    The dock in Buena Vista Township reported a reduction of 25 
percent in ship tonnage. Tugboats have been needed to turn 
boats around because channels have not been dredged, at a cost 
of $15,000 to $20,000 each week. In one case, a freighter ran 
aground at Saginaw last year and the ship's rudder was torn 
off.
    This problem stems in part from the way the Corps' budget 
is prepared using metrics such as cargo tonnage and ship miles. 
But the performance metrics treat the Great Lakes like a river 
system, which results in funding inequities. The Corps spent 
about 5 cents per ton of cargo carried in the Great Lakes. That 
should be 52 cents per ton, 52 cents per ton of cargo carried 
in the Great Lakes, but the Missouri River received about $15 
per ton of cargo carried. So that is about 30 times as much per 
ton for the Missouri River as was the case for tonnage that was 
carried in the Great Lakes.
    Will you take a look at those budgeting guidelines if you 
are confirmed, to assure equitable funding allocations for the 
Nation's shipping infrastructure?
    General Van Antwerp. Yes, Senator, I will.
    Chairman Levin. I have a couple more questions. Senator 
Warner, let me turn to you.
    Senator Warner. Why do you not go ahead? I am going to be 
here for a while.
    Chairman Levin. Let me try to wind this up. I thought I 
only had one more, but there were two additional questions I 
did not realize I had.
    The Senate Homeland Security and Governmental Affairs 
Committee's investigation of Hurricane Katrina found that the 
problems with the New Orleans hurricane protection system could 
be attributed in part to ``infrastructure elements being 
designed and maintained by multiple authorities.'' The team 
leader of the National Science Foundation's Katrina 
investigation testified before that committee and stated that 
``No one is in charge. You have multiple agencies, multiple 
organizations, some of whom are not on speaking terms with each 
other, sharing responsibilities for public safety. There is a 
need to coordinate these things.''
    General, as Chief of the Engineers, how would you improve 
the Corps' operation, maintenance, and inspection activities in 
order to avoid that kind of multiplicity and in order to better 
protect our people and our investments?
    General Van Antwerp. Mr. Chairman, I believe firmly in 
communication. It starts there, and then there needs to be a 
very fixed responsibility for the asset, and there needs to be 
joint inspections, so that when you go through and you 
determine what needs to be done and then you fix responsibility 
for that and then there is a procedure to determine how it is 
paid for and what the cost-sharing ratios are.
    But a lot more joint work, as you alluded to, and much 
better communications. I think it will be something that I will 
definitely get into early on as a priority.
    Chairman Levin. We have major problems in the Great Lakes 
and in the Mississippi River watershed from the spread of 
invasive species. Congress authorized a dispersal barrier 
demonstration project in the National Invasive Species Act of 
1996. It is not the permanent barrier that we need, 
particularly against a species called the Asian carp, and so we 
need to have a permanent protection from that particular 
invasive species, because it poses huge threats to our 
fisheries and our ecosystems, and we just have to have a 
permanent barrier, not just a demonstration barrier.
    The health and the economic vitality of the Great Lakes 
depends on a lot of stakeholders. It is a huge issue for those 
of us who are in Great Lakes States. The Army Corps plays an 
essential role in that protection and in that health and 
economic vitality. I just want to point it out to you. I know 
that you are sensitive to it because of your background and 
where you were born and raised. But I just want to just keep 
that front and center if you would.
    General Van Antwerp. Yes, Mr. Chairman.
    Chairman Levin. Finally, my last question has to do with a 
fund called the Harbor Maintenance Trust Fund. It has a $3 
billion surplus and it is growing every year. Yet there are 
waterways and small harbors, including harbors of refuge in 
Michigan, that are silting due to the lack of sufficient funds 
for dredging, as I have mentioned before. Will you take a look 
at these budgets and will you make sure that the Office of 
Management and Budget is aware both of the Harbor Maintenance 
Trust Fund and of the dredging needs of the Great Lakes when 
they develop the administration's future budget requests?
    General Van Antwerp. Yes, sir.
    Chairman Levin. Senator Webb, you are next, but should I 
call on Senator Warner?
    Senator Webb. If you would, Mr. Chairman. I will be right 
with you.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Admiral Keating, in your response to the committee's 
advance questions you very forthrightly, and I stress 
``forthrightly,'' addressed a continuing challenge for those 
who have preceded you and for you, and that is, and I quote 
your own language, ``influencing cross-strait relations between 
China and Taiwan.''
    How do you propose to carry on Admiral Fallon's very adroit 
and skillful handling of that issue, and what would you hope to 
add to it? Certainly here in Congress at the present time there 
is complete respect and adherence to the framework of laws we 
have there and our policy towards the two Chinas, so to speak. 
But I would like to have for the record your own perspective on 
this challenge and how you propose to deal with it, because I 
am, speaking for myself here, very concerned from time to time 
at some of the rhetoric that emanates from sources that are 
well known to you and the inflammatory nature of that rhetoric. 
I would hate to see it spark a conflict.
    Admiral Keating. Senator, if confirmed, those relations and 
sustaining the calm that appears the pervade today across the 
Straits of Taiwan will be a principal goal of ours at PACOM. I 
know you are very familiar with the Taiwan Relations Act. We 
understand that act.
    Senator Warner. Yes, that is what I was referring to.
    Admiral Keating. Yes, sir. In dealing with the People's 
Republic of China and with the Government of Taiwan, we would 
emphasize that China has to be very careful in the development 
of offensive weapons. We want to sustain Taiwan's notion of a 
defensive front from their military capabilities. We would 
encourage increased dialogue between those two countries on an 
informal basis, and we are not unaware of the burgeoning 
economic engine that is trade across the Straits of Taiwan. So 
we would encourage all those positive signs. We would do our 
best to make sure that both sides were aware of our close 
observation of developments, and we would do our best to 
sustain the harmony that does appear to be the situation across 
the Straits of Taiwan today.
    Senator Warner. I thank you. I wish you support in that 
endeavor.
    Admiral Keating. Thank you, sir.
    Senator Warner. General Van Antwerp, I have had the 
privilege of working with many of your predecessors during the 
years, and I say this part in humor, but part in reality. You 
probably have one of the most political appointments to be 
found in DOD. Looking over your background, which has been a 
magnificent accomplishment of a professional military man, I 
suggest you begin to take a tutorial, if you have not already 
done so, as to how to deal with this.
    I have found through the years one of the core problems 
that arises between Congress, which understandably has a need 
to be very closely advised with regard to the work that you do, 
given that so much of that work impacts our States--but you 
stated in your advance questions--and I always go through these 
rather carefully. You said as follows: ``The integrity of the 
Corps of Engineers rests on the objectivity, transparency, and 
scientific validity of its analytical processes.''
    Let us focus on the word ``transparency.'' It means a 
sharing with the public, with Congress, and others the nature 
of your challenges and how you best think you can address it.
    General Van Antwerp. Senator, I agree with that word. I 
believe that should be in the communications strategy. We need 
to let America know of the risks as we are working for the 
public safety. The problem always is where you identify the 
risks, until the studies have been finished you do not know the 
full extent. But I believe in going with as much transparency 
as you can. In the Army we call it ``go ugly early,'' so you 
get it out there and get the discussions going. That helps 
frame a lot of times the solution. So I believe in that 
transparency.
    Senator Warner. I thank you.
    I would like to take a cue from my distinguished 
colleague's line of questioning here about the Great Lakes. I 
would like to return to a very simple matter in my State, since 
we are going to deal with our States here for a little bit. I 
have been on this committee 29 years and I think about 20 of 
those years I have been trying to work with the Corps on 
building a much-needed dam in Virginia. You and I discussed it 
yesterday, but I would like to put a little bit on the record--
which through the years, given the growing nature of that 
geographic area of Virginia, namely the Newport News area, is 
absolutely essential to maintain the health and safety of the 
people of that community, all the people, not just those that 
live right in particular areas, but a lot of the Indian tribes 
that we are very proud to have in our State are co-located 
there, understandably, and I respect greatly their desire to 
preserve their heritage. But we still have some lingering 
problems related to that, which I hope we can resolve.
    You have studied a little bit on it and without getting 
into too many specifics for the future, do you think that 
project can go forward? Because I think we have in 20 years 
gotten it to the point where all of the basic steps to be 
performed by the Corps have been done and done carefully. The 
environmental steps have been taken care of. Do you project 
that project can now go forward in the near future?
    General Van Antwerp. Senator, I believe it can go forward. 
I think we have to have this engagement strategy with our 
Indian tribes to make sure we have dealt with their objections 
and looked for possible mitigations. But I believe everything 
else is in place, from what I have read, to move forward.
    Senator Warner. Coming back to Admiral Keating and General 
Renuart, let us talk about the fact that how our law, with 
regard to the security of our Nation, puts a great deal of 
emphasis on how in the aftermath of a calamitous terrorist 
attack or other national catastrophe that the Department of 
Homeland Security and other State and local agencies have the 
primary initial responsibility, and NORTHCOM's mission is to 
provide support to civil authorities when directed by the 
President or the Secretary of Defense, which means you have to 
keep a constant assessment of what you have available in the 
Active and Reserve components of our military to meet these 
unanticipated and often very quick demands.
    As you pass these authorities over to the General, Admiral, 
fortunately on your watch you have not had a major situation, 
but we have to always plan for it. Given the extraordinary 
contribution of the Guard and Reserve in the conflicts in 
Afghanistan and Iraq, I think it is generally recognized that 
the Guard and Reserve require some very special consideration 
in the coming years to first resupply their equipment and 
second to work on their rotations so that they can continue to 
be a civilian as well as a military guardsman or reservist.
    It has gotten to a critical situation, this Guard and 
Reserve. As you pass off, perhaps you can address your concept 
of the criticality. Maybe you are aware of the Commission on 
the Guard and Reserve and their report. Why do you not start 
with their report, which seemed to indicate that perhaps as you 
pass this challenge over to your successor you will have to 
answer that report.
    Admiral Keating. Yes, sir. I was given the privilege of 
testifying before Chairman Punaro's committee and I am aware of 
the report. I have seen the executive summary. I have not read 
the report in its entirety.
    Senator Warner. Let me read the one sentence here which I 
find somewhat troubling. The report by the Commission on the 
roles and missions of the National Guard and Reserve finds that 
the Commander of NORTHCOM ``does not sufficiently advocate for 
the full range of civil support requirements affecting the 
National Guard and Reserves.''
    Why do you not pick up from that?
    Admiral Keating. I disagree with that assessment, Senator. 
We have on two occasions in the 2 years that I have had the 
privilege of being at NORTHCOM gone forward with an official 
submission to DOD, an integrated priority list and a program 
objective memorandum input for the fiscal year 2008 budget in 
which we recommended specifically advocacy for certain Guard 
programs, including their civil support teams and joint 
headquarters in each State.
    So I disagree with that assessment and so testified in my 
original testimony before Chairman Punaro's committee. We have, 
as you may know, Senator, a full-time Active-Duty title 10 two-
star Air Guardsman as our chief of staff. That billet has 
always at NORTHCOM been filled by a National Guard or Air 
Guardsman. We have 5 other flag or general officers who are 
assigned to our staff and we have over 100 Guardsmen or Air 
Guardsmen who serve full-time on our staff. I think we are 
adequately represented and, more importantly, we are critically 
aware of the importance of a firm understanding of National 
Guard capabilities and their essential role in executing our 
military mission of providing support to civil authorities. We 
are very conscious of it and we support the Guard in many ways 
on the record and in conversations with the Guard Bureau.
    Senator Warner. I wanted to give you this opportunity to 
put that in the record.
    Admiral Keating. Thank you, sir.
    Senator Warner. As you pass over these responsibilities, I 
think we all agree that the criticality of the Guard and 
Reserve at this time as a consequence of their very courageous 
and forthcoming contribution to procuring the goals both in 
Iraq and Afghanistan have left it in some rather unusual 
circumstances. I am not suggesting it cannot continue to carry 
out its missions, but it needs help. Given the fact that it 
needs help, it seems to me that impacts you, General Renuart, 
as you pick up this responsibility. I hope that one of your 
first priorities is to fully acquaint yourself with the status 
of the Guard and Reserve, its ability to respond to orders that 
you will get from the President and/or Secretary of Defense as 
a consequence of a catastrophe that the local authorities, 
State authorities, and the Department of Homeland Security 
simply cannot deal with and therefore has to look to the 
resources of DOD. You are the coordinator on that.
    Do you have any view?
    General Renuart. Senator, thank you for that, and I want to 
underline the work that Admiral Keating and the staff at 
NORTHCOM have done advocating for the Guard. If you look at the 
current supplemental request that is being worked as well as 
the fiscal year 2008 budget, there is a substantial portion of 
the budget put in to re-equip some of these shortfalls in the 
Guard and Reserve.
    If confirmed in this position, it will be one of my 
principal priorities to not only establish a better 
understanding on my behalf of the requirements for the Guard 
and Reserve, but to continue to be the strong advocate in the 
Joint Requirements Oversight Council process for those 
requirements and to work towards getting them funded and 
resupplied.
    Senator Warner. One last question, Mr. Chairman. It relates 
to a subject that I have followed very closely. I will never 
forget, on September 11, Chairman Levin and I went over to the 
Pentagon. You remember that day?
    Chairman Levin. I do indeed.
    Senator Warner. We went down with the Secretary of Defense 
and the Chairman of the Joint Chiefs into the tank and 
periodically with the Secretary of Defense we went back to the 
scene and watched the various elements of first responders 
dealing with a situation I will never forget as long as I live. 
Extraordinary bravery and courage.
    But we also saw the failure of interoperability between 
segments of those first responders and other important areas 
where they were receiving information and instructions. That 
seems to continue to be somewhat of a problem; is that correct, 
Admiral, as you step down?
    Admiral Keating. There is work to be done, yes, sir.
    Senator Warner. There is work to be done. Have the two of 
you had a chance to carefully outline your perspectives on the 
volume and the nature of that work that has to be done?
    Admiral Keating. We have.
    General Renuart. Yes, sir, we have.
    Senator Warner. I find that reassuring, that you will do 
that, because that has to be the highest priority. The next 
time you appear before this committee, God willing, if I am 
back up in this chair that is the first question I am going to 
ask you, General Renuart: What is the status of that 
interoperability of communications?
    General Renuart. Senator, thank you, and I, if confirmed, 
look forward to the chance to speak with you further about it.
    Senator Warner. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Senator Webb, I just want to thank Senator Pryor. He 
technically, a technicality, he was next. I bypassed Senator 
Webb once and I appreciate Senator Pryor allowing me to call on 
Senator Webb at this time.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman. Also I would like to 
thank my colleague for allowing me a few minutes here.
    I would like to first apologize to the witnesses. This is 
one of these situations, I am on four committees and all four 
of them called hearings this morning, plus the Leader called a 
meeting of the new Senators on the budget issue. So I literally 
had to be five different places at the same time.
    I wanted to come by and first of all pay my respects to all 
of you for the service you have given and to your families for 
the contributions that you have made. I had the opportunity to 
have pretty extensive one-on-one visits with Admiral Keating 
and with General Renuart and most of the questions that concern 
me were asked in that forum. I am not going to repeat them 
here. I do not think there is any real necessity to put 
anything into the record, but I think we all know where the 
issues are. I have great confidence in both of you in terms of 
the operational experience that you are bringing to the 
positions, which I think is vital in terms of how the American 
military works.
    Admiral Keating, as I said when I met with you, I think you 
have the position that historically is probably the most 
revered position for any naval officer. It is not only a 
position of great historical esteem; also right now it is I 
think one of the most important positions that anyone could 
have regarding the future of our country.
    One of the things that I have been greatly concerned about 
as the national attention has become so focused on the Iraqi 
involvement and the way that we have approached that issue is 
that we are taking our eye off the ball in terms of where our 
long-term strategic challenges are. Those are heavily in your 
region. I have long experience in that region as a military 
person, as a journalist, as a businessman, and in the 
Government. I am looking forward to working with you on those 
issues as a member of this committee and also as a member of 
the Foreign Relations Committee.
    General, I wish you well.
    General Van Antwerp, I did not get a chance to visit with 
you personally. I have examined your credentials and I am 
obviously going to support you. I have one issue that I would 
like to address for today to hear your views on, but also as 
something that I want to mark for the future. I have a great 
deal of concern about what happened at Hurricane Katrina. When 
I examine that tragedy, it had three different components to 
it. One is the potential that we had with proper planning to 
actually have prevented the failure of the levee system and so 
much of the catastrophic effect from when the levees broke. The 
second was the management of the crisis itself. The third is 
the aftermath, in which I think the Corps of Engineers has done 
a really marvelous job.
    But with respect to planning and also with respect to the 
next evolution of attempting to prevent a similar situation, I 
do have some concerns. Maybe you can clarify something for me. 
I have read in a number of places that the Corps of Engineers 
was recommending funding levels at far higher levels than 
actually were put into place with respect to--I do not know 
what the right engineering term would be, but revitalizing the 
levee systems. I cannot say repairing them because from what I 
am reading they were sort of flattening out; but that there was 
an estimate done by the Corps of Engineers saying that these 
levee systems needed to be dramatically invigorated. I can 
choose the word. You see what I mean.
    But is that not so, that the Corps of Engineers was warning 
before this incident that there should be funding for a 
different sort of approach to the levee system?
    General Van Antwerp. My understanding, Senator, is that 
there is a number of design things that were looked at and one 
of the solutions is what they call a T-wall. You have basically 
two things you can do. You can spread it out over a larger 
piece of ground and shape it differently and make it higher, or 
you can have internal parts of that structure. So I believe you 
are correct in that. I do not know all the budget figures, but 
if confirmed I would certainly get into that and look at what 
we are doing on those repairs.
    Senator Webb. What I would like is to have a better 
understanding of that. I do not think this is simply 
retroactive. If you could provide for us what the 
recommendations were from the Corps of Engineers with respect 
to the health of the levee systems in, say, the 6 or 7 years 
before this incident, because I would like to be able to either 
validate what I read or understand that it was not true, 
because what I have been reading is that the Corps of Engineers 
was specifically warning that a certain level of funding would 
be necessary in order to preclude what exactly happened.
    Just anecdotally, I can tell you--my wife is from New 
Orleans. We were down there a little less than a year ago. I 
went down into one of these areas that had been wiped out, 
where the levee had broken. Everyone has their stories, but it 
was kind of illuminating to me. I was just trying to find 
somebody to talk to. Everyone is gone. You had the little 
trailers out front. I did not want to just impose myself on 
somebody walking along the street, but I was driving along one 
of these burned-out areas and I saw a Marine Corps flag in 
somebody's back yard and I figured, well, that person I could 
at least open up a discussion with.
    There was a gentleman there who had lived in the same house 
for 51 years and lost everything, gone completely. I asked him 
during the course of a conversation what his thoughts were 
about the prevention of this. He told me he had been on one of 
the commissions for 20 years before this happened and that they 
had been saying over and over again that these levees were 
flattening out. So maybe it is this T system you are talking 
about, but they could measurably see that they were flattening 
out, and as a result it would be much easier for the water to 
broach them than they would have been perhaps even at the same 
height if they were straight, just the angle of flow and this 
sort of thing.
    I really would like to know: (A) what the Corps of 
Engineers was saying about this. I think this is important for 
the historical record, and then (B) what are the 
recommendations now? Because one thing that we have been seeing 
in terms of the debate is to what extent are these levees going 
to be rebuilt, to what level of the next hurricane are they 
going to be able to withstand?
    I cannot think of any more important function that you 
would be doing in your job than helping us make sure we get 
that right. I would appreciate your thoughts on both of those 
in as timely a manner as you could provide them for us.
    [The information referred to follows:]

    The Corps recognized the urgency to complete construction of the 
ongoing levee projects, as well as the design and approval for new 
levee projects for the Greater New Orleans Area. The Corps' annual 
budget request included funding for the ongoing hurricane protection 
projects. The West Bank and Vicinity Hurricane Protection Project was 
budgeted annually at a funding level to complete the first level of 
protection as quickly as possible. The ongoing study to evaluate higher 
levels of protection in several parishes in southeastern Louisiana was 
proceeding to the feasibility phase. Several areas were identified for 
evaluation for raising current levee systems, construction of barriers 
that may prevent storm surges from moving inland, and wetlands 
construction and restoration.
    The Corps of Engineers is committed to designing and constructing 
the best hurricane protection system for people and the environment 
within the resources provided and remains focused on restoring levees 
and floodwalls to the authorized heights and completing all planned 
projects in conjunction with the ultimate goal of providing 100-year 
protection for the system, as directed by Public Law 109-234. 
Additionally, several measures to provide higher levels of protection 
are now being reviewed under the Louisiana Coastal Protection and 
Restoration Act evaluation requested by Congress following Hurricane 
Katrina. This evaluation includes nonstructural measures and coastal 
restoration as a way to provide comprehensive hurricane protection.

    Senator Webb. I have run out of time and I wish all of you 
gentlemen the best in your new positions.
    Chairman Levin. Thank you, Senator Webb.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman. I apologize for 
having to be in two places at once, not five places at once 
like some people here. But anyway, I have had to come and go, 
and I have not had a chance to listen to all the nominees' 
answers. But I really appreciate the panel being here today.
    General Van Antwerp, let me start with you and follow up on 
a conversation we had in my office a few days ago. We hear a 
lot of comments in my office from communities on the Arkansas 
border riverways about the levee system. Apparently FEMA has 
come out with this in order to modernize their flood insurance 
rate maps, they feel like we need to inspect all our levee 
systems, et cetera, et cetera. This has a huge impact on the 
cost of that and who bears that cost, and the cities, et 
cetera, are very concerned about that; and second, on insurance 
rates for people living in those areas.
    Do I understand it correctly that the Corps of Engineers' 
role in this is to conduct these certifications?
    General Van Antwerp. That is correct, Senator.
    Senator Pryor. Do you pay for that or do you require the 
owners of the levees to pay for that?
    General Van Antwerp. Senator, I am not sure of the answer 
to that question. It is possible that it could be cost-shared, 
but I believe it is borne by the Corps. But I will have to 
reply to you on that.
    [The information referred to follows:]

    In accordance with Corps of Engineers guidance issued in August 
2006 and FEMA regulations, in general, the levee owner is responsible 
for certifying the levee and paying the associated costs. In this 
particular instance however, these levees in Arkansas are owned and 
operated by the Corps of Engineers as part of the Mississippi Rivers 
and Tributaries project. Therefore, the Corps of Engineers is 
responsible for certifying and paying the costs, provided that funds 
are appropriated for this work.

    Senator Pryor. In terms of the evaluation of these levees 
and also repairing the levees if they need to be repaired, 
obviously that is very important. It is going to be very 
difficult the smaller the entity is for them to bear that cost. 
I am not picking on anybody, but St. Louis probably has a 
better budget to handle that than, say, Little Rock. Little 
Rock is going to have a better budget than, say, Russellville, 
AR, and Russellville is going to have a better budget than just 
a levee district probably will, all things being equal.
    That is something that is very important to us. So as you 
take this post, I would just encourage you to remember the 
practical ramifications of this and work with Congress and work 
with local people on cost-sharing and spreading that cost and 
making that as painless as possible. Please do that.
    The other thing about our transportation needs in this 
country, when you look out over the future we know right now 
already that we have a lot of rail corridors that are clogged, 
overused, and there is a lot of congestion. We also know that 
our highways are congested with big trucks. By the way, those 
numbers are fairly alarming, about how many more big trucks 
will be on the road over the next 20 years. We have seen some 
statistics on that in the Senate Commerce Committee and it is 
something that we obviously need to invest in infrastructure 
there.
    We also need to invest in our river infrastructure. This is 
very important, not just for a State like mine, but really 
States all over the Union. In fact, Mr. Chairman, you might be 
interested to know that a few years ago I went to one of our 
steel mills. We have some steel mills in Arkansas. Most of 
them, not all but most of them, are on the Mississippi River. 
What they do is they recycle steel. A few years ago, it was 
cheaper for them to go to Europe and buy the steel, ship it, 
barge it up the Mississippi River, and get it to us in Arkansas 
than it was to pay the freight via rail through Chicago.
    It was cheaper to come from Europe on the water than it was 
rail from Chicago. Obviously, they have a lot of scrap metal in 
Chicago that we could be using, but they look at the cost.
    So having good waterways and that good infrastructure on 
water, they are very important to the economy of this country. 
I just wanted to make sure you understood that.
    General Van Antwerp. I agree. The statistics I have seen is 
for large growth, both in the navigable waterways, but also in 
our ports and harbors.
    Senator Pryor. Yes. To me it just seems that we cannot 
forget about our waterways as we look at infrastructure needs. 
A lot of the locks and dams are old. They were engineered and 
built a long time ago. Do you have any sort of plan to 
modernize those or upgrade those, or are we just going to do 
that as needed?
    General Van Antwerp. I understand there has been a 
comprehensive look and we know what the risks are out there. Of 
course, in many cases it is a matter of authorization and 
dollars. But I am told that the Corps has a good understanding 
of what needs to be repaired and those surveys have been done.
    Senator Pryor. There was plenty of blame to go around after 
Hurricane Katrina happened and everybody probably shares a 
little bit of the blame and deserves a little bit of the blame. 
But one of the groups that was singled out specifically for a 
lot of blame was the Corps of Engineers and how they designed 
and did some of their work down in New Orleans and down in the 
southern Louisiana area.
    Do you think that criticism is justified?
    General Van Antwerp. Senator, I agree, I think, as you take 
a look back, there is always a lot of contributing factors. In 
many cases it is projects that were done years and years ago 
with the best of intentions, things that impacted wetlands or 
the outlets into the Gulf. Certainly the levees are an integral 
part. I believe it has to work as a system and so you have to 
look at all aspects.
    It is also a fairly difficult area to construct and there 
was some settling, from the reports I have read, of some of the 
levees, which meant that they did not have the height to be 
able to take the storm as it came, so they really did not 
provide the 100-year protection. I think we all have a 
responsibility in that.
    Senator Pryor. The last question I have is, I know you have 
a huge commitment in Iraq. Given the relatively new commitment 
for you in Iraq, do you have the resources necessary to meet 
your domestic obligations?
    General Van Antwerp. Since we had our discussion in your 
office, I have looked into that some. Right now we are doing 
fine as far as I understand it. Actually, there is still good 
competition for positions that take critical skills. The longer 
we go here, there will be impact. We have almost 400 people in 
Iraq and 160 in Afghanistan, civilians. That is not counting 
about the 100 military that are there.
    That is something we really have to keep our eye on and 
whether there is another source of those critical skills. You 
cannot just take anybody and have them supervise a project. 
They have to know what they are doing. So, if confirmed, I 
would take a close look at what those skills are and what is in 
the pipeline to keep those.
    Senator Pryor. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you. Senator Pryor, do you have any 
additional questions?
    Senator Pryor. I do not. Thank you.
    Chairman Levin. Thank you.
    I have no additional questions. Again we commend you all 
and we thank you and your families for your service.
    We will stand adjourned and hope that we can promptly get 
to your confirmations.
    [Whereupon, at 11:16 a.m., the committee adjourned.]

    [Prepared questions submitted to ADM Timothy J. Keating, 
USN, by Chairman Levin prior to the hearing with answers 
supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I do not see any need to modify the Goldwater-Nichols Act.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I do not see any need to modify the Goldwater-Nichols Act.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Pacific Command (PACOM)?
    Answer. The Commander, U.S. PACOM is responsible for deterring 
attacks against the United States and its territories, possessions, and 
bases, to protect Americans and American interests and, in the event 
that deterrence fails, to fight and win. The Commander is also 
responsible for expanding security cooperation with our allies, 
partners, and friends across the Asia-Pacific region.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. Thirty-six years of military training and experience, to 
include previous combatant command of the North American Aerospace 
Defense Command and U.S. Northern Command (NORTHCOM), have prepared me 
for assuming command of the U.S. PACOM. During Operation Iraqi Freedom, 
as Commander, U.S. Naval Forces Central Command, I planned and executed 
coalition and joint warfighting missions. As Director of the Joint 
Staff, I have gained invaluable insights into the conduct of joint 
operations, the duties of a combatant commander, and interagency 
cooperation. In addition, I gained regional experience as Commander of 
Carrier Group Five in Yokosuka, Japan and, additionally, on several 
operational deployments to the Pacific theater.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
U.S. PACOM?
    Answer. If confirmed, I intend to take every opportunity to enhance 
my knowledge of our relationships with our allies and partners across 
the Pacific. I look forward to engaging with senior leaders within the 
Department of Defense (DOD), the Department of State, and military and 
civilian leaders throughout the Asia-Pacific region in order to improve 
my understanding of U.S. interests in the region.

                             RELATIONSHIPS

    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the commanders of the combatant 
commands. Other sections of law and traditional practice, however, 
establish important relationships outside the chain of command. Please 
describe your understanding of the relationship of the Commander, U.S. 
PACOM, to the following officials:
    The Secretary of Defense.
    Answer. The Commander, U.S. PACOM, performs his duties under the 
authority, direction, and control of the Secretary of Defense. He is 
directly responsible to the Secretary of Defense for the ability of the 
Command to carry out its missions.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense performs duties as directed 
by the Secretary and performs the duties of the Secretary in his 
absence. The Commander, U.S. PACOM, ensures the Deputy has the 
information necessary to perform these duties and coordinates with him 
on major issues.
    Question. The Under Secretary of Defense for Policy.
    Answer. Under secretaries are key advocates for combatant commands' 
requirements. The Commander, U.S. PACOM, coordinates and exchanges 
information with the Under Secretary of Defense for Policy on strategic 
policy issues involving the Asia-Pacific region.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. The Commander, U.S. PACOM, coordinates and exchanges 
information with the Under Secretary of Defense for Intelligence as 
needed to set and meet the Command's intelligence requirements.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. While the Chairman is not in the chain of command that runs 
from the President and the Secretary of Defense to combatant 
commanders, his role as the senior uniformed military advisor is 
critical. The Commander, U.S. PACOM, supports the chain of command as 
directed in title 10 and communicates with the Chairman to enable him 
to perform his duties as the principal military advisor to the 
President and the Secretary of Defense.
    Question. The secretaries of the military departments.
    Answer. The secretaries of the military departments are responsible 
for the administration and support of forces assigned to combatant 
commands. The Commander, U.S. PACOM, coordinates with the secretaries 
to ensure that requirements to organize, train, and equip PACOM forces 
are met.
    Question. The Chiefs of Staff of the Services.
    Answer. The Commander, U.S. PACOM, communicates and exchanges 
information with the chiefs of staff of the Services to support their 
responsibility for organizing, training, and equipping forces. 
Successful execution of U.S. PACOM's mission responsibilities requires 
coordination with the Service Chiefs. Like the Chairman, the Service 
Chiefs are valuable sources of judgment and advice for combatant 
commanders.
    Question. The other combatant commanders.
    Answer. The Commander, U.S. PACOM, maintains close relationships 
with the other combatant commanders. These relationships, which are 
critical to the execution of our National Military Strategy, are 
characterized by mutual support, frequent contact, and productive 
exchanges of information on key issues.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the next Commander, U.S. PACOM?
    Answer. Traditional security challenges include ensuring peace and 
stability on the Korean Peninsula and influencing cross-strait 
relations between China and Taiwan. We must also address other security 
issues, especially the threat of terrorism, weapons of mass destruction 
(WMD) proliferation, and transnational crime such as narcotics and 
human trafficking and piracy.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will posture our military forces to 
dissuade, deter, or defeat any potential adversary. I will work with 
other DOD organizations, agencies of the U.S. Government, and our many 
friends and allies to assure the region of our strong resolve and 
lasting commitment to stability, security, and prosperity throughout 
Asia and the Pacific.

                            HOMELAND DEFENSE

    Question. What is your understanding of the role and responsibility 
of U.S. PACOM in homeland defense?
    Answer. U.S. PACOM's responsibility is to deter attacks against the 
Homeland as early and as far away as possible, defend the U.S. PACOM 
domestic area of responsibility (AOR), and work with and provide 
support to civil authorities when requested. Additionally, U.S. PACOM's 
homeland defense plan complements and is integrated with planning for 
the ongoing global war on terrorism, combating WMD, homeland security, 
and other relevant activities.
    Question. What is your understanding of how U.S. PACOM and U.S. 
NORTHCOM work to ensure that their overlapping missions in this area do 
not create ``seams'' that might be exploited by our adversaries and how 
this process might be improved?
    Answer. In October 2003, Commander, U.S. PACOM and Commander, U.S. 
NORTHCOM signed a Command Arrangement Agreement, to ``establish 
procedures and delineate responsibilities'' between the two commands. 
This agreement also prescribes employment of U.S. PACOM forces in 
support of U.S. NORTHCOM missions and the control of forces operating 
in NORTHCOM's AOR. In my experience, the agreement between combatant 
commands has been highly effective. If confirmed, I intend to continue 
the close working relationship between the two commands.
    Question. What is your assessment of the Regional Maritime Security 
Initiative, and what steps should be taken to improve upon it?
    Answer. The Regional Maritime Security Initiative was developed to 
foster coordination among participating states to address transnational 
threats collectively. The themes and goals of the initiative continue 
to gain momentum in the Asia-Pacific region as the ``Global Maritime 
Partnership.'' Its effectiveness can be increased through better 
information sharing and investing the time and effort to improve 
understanding of the challenges and needs of the partner nations. U.S. 
PACOM should continue to encourage multilateral and interagency 
approaches to the challenges.
    Question. How could U.S. PACOM forces and expertise contribute to 
more effective homeland defense capabilities?
    Answer. U.S. PACOM's military and intelligence activities in the 
western approaches to the continental United States contribute to the 
Nation's active, layered defense and enhance situational awareness. 
Improving our capabilities in this regard will require continued 
efforts to collect actionable intelligence, exercise and train our 
forces, and engage actively with nations of the Asia-Pacific.

                     GLOBAL DEFENSE POSTURE REVIEW

    Question. Perhaps more than in any other combatant command, 
military exigencies in the U.S. PACOM are subject to the ``tyranny of 
distance'' in getting forces to points of conflict.
    In your view, how important is the forward basing strategy to the 
ability of U.S. PACOM to execute its operational contingencies, and did 
the Global Posture Review appropriately take this into account?
    Answer. Forward basing is essential to the U.S. PACOM shaping and 
warfighting strategy. Forward presence in the AOR assures friends and 
allies and dissuades potential adversaries. Because posture changes 
resulting from Global Posture Review shift forces away from a garrison 
orientation and toward a more flexible force, I believe U.S. PACOM is 
well-positioned to respond with necessary military forces in the event 
of crises or contingency.
    Question. What do you see as the implications of the proposed 
global force structure changes with respect to U.S. PACOM's AOR, 
particularly in Korea and Japan?
    Answer. I support alliance transformations currently underway in 
Japan and the Republic of Korea. In general, I see the changes as 
effective from a mission perspective and an example of the healthy 
state of our alliance with both nations.
    Question. What impact, if any, do you expect the proposed changes 
in posture will have on our ability to defend South Korea and Japan, 
and to react to a crisis in the Taiwan Strait?
    Answer. I do not anticipate any reduction in the command's ability 
to meet commitments to our allies.
    Question. The Army is proposing to add 65,000 personnel to its 
permanent force structure over the course of the Future Years Defense 
Program, including the creation of six additional active-duty combat 
brigades. The Marine Corps is proposing to add 27,000 personnel over 
the same period.
    Do you believe that any of these additional personnel and units 
should be assigned to commands located in the U.S. PACOM's AOR in order 
to meet PACOM's your requirements?
    Answer. The proposals to expand the Army and Marine Corps allow us 
to reexamine our basing options and ensure that we have the optimum mix 
of forces to execute the National Military Strategy. If confirmed, I 
intend to study where force increases in the Pacific theater might be 
appropriate to enhance mission accomplishment and to share our analysis 
with DOD.
    Question. If so, to what extent do you believe these additional 
forces should be forward-deployed, as in Korea or Japan, or deployed in 
the United States, such as Hawaii or Alaska?
    Answer. If confirmed, I will study the options and consider the 
evolving situation in the Pacific, as these expanded forces are brought 
online. Once I have formed my assessment, I will provide my views to 
the Secretary of Defense.

                              NORTH KOREA

    Question. North Korea represents one of the greatest near-term 
threats to U.S. national security interests in Asia.
    What is your assessment of the current security situation on the 
Korean peninsula and the diplomatic efforts to persuade North Korea to 
verifiably dismantle its nuclear weapons program?
    Answer. The missile launches and nuclear test conducted last year 
underscore the gravity of the North Korean threat. If confirmed, I will 
support diplomatic efforts to persuade North Korea to dismantle its 
nuclear weapons program. I am encouraged by the progress made at the 
Six-Party Talks in Beijing last month. I believe one of the key roles 
of U.S. PACOM is to work closely with the countries in the region to 
facilitate the ongoing diplomatic efforts aimed at addressing the 
threat, while maintaining a credible deterrent posture.
    Question. What is your assessment of the threat posed to the United 
States and its allies by North Korea's ballistic missile and WMD 
capabilities and the export of those capabilities?
    Answer. North Korea's development of WMD and ballistic missile 
capabilities and potential proliferation pose a serious threat to the 
U.S. and our allies.
    Question. In your view, what, if anything, should be done to 
strengthen deterrence on the Korean peninsula?
    Answer. If confirmed, my focus will be on preserving the strength 
and resolve of our alliances. We must leverage relationships with other 
nations in the region to shape the strategic environment aimed at 
deterring aggression in Northeast Asia.

                     REPUBLIC OF SOUTH KOREA (ROK)

    Question. Since the end of World War II, the U.S.-ROK alliance has 
been a key pillar of security in the Asia-Pacific region. This 
relationship is currently undergoing significant change.
    What is your understanding of the current U.S. security 
relationship with South Korea?
    Answer. The U.S.-ROK security relationship is an enduring 
partnership that has been the key to deterrence for over 50 years. Our 
alliance has evolved to become a global partnership with the ROK 
military's contributions to the war on terror in Iraq and Afghanistan, 
and the upcoming deployment of ROK troops in support of the U.N. 
mission in Lebanon.
    Question. If confirmed, what measures, if any, would you take, in 
conjunction with the Commander, U.S. Forces Korea/Combined Forces 
Command, to improve the U.S.-South Korean security relationship?
    Answer. If confirmed, I will work closely with the Commander of 
United States Forces Korea/Combined Forces Command to ensure there is 
no degradation in readiness or deterrence. I will ensure that U.S. 
PACOM supports the ongoing U.S. Forces Korea transformation initiatives 
that are vital to enhancing the capabilities of our combined forces and 
facilitating the eventual transition of wartime operational control to 
the ROK military.
    Question. Do you support expanding the number of personnel assigned 
to Korea for 2 or 3 years of duty and the number of military and 
civilian personnel authorized to be accompanied by their dependents for 
these longer tours of duty?
    Answer. I have not yet studied the proposal in detail, particularly 
with respect to affordability. However, in general, I believe longer 
tours and more troops having their families accompany them are in the 
best interests of our alliance and our readiness on the Korean 
peninsula.

                                 CHINA

    Question. Many observers believe that one of the key national 
security challenges of this century is how to manage China's emergence 
as a major regional and global economic and military power.
    How would you characterize the U.S. security relationship with 
China?
    Answer. From my vantage at NORTHCOM, I was encouraged by China's 
role in facilitating North Korean return to the Six-Party Talks. I see 
this as constructive and responsible. I also am aware of the lack of 
transparency regarding Chinese military modernization, which is a 
concern.
    Question. What is your assessment of the current state of U.S.-
China military-to-military relations, and do you favor increased 
military-to-military contacts with China?
    Answer. Our military-to-mililtary relationship is improving in 
terms of quality and quantity of events. If confirmed, I intend to 
advocate for an engagement program involving numerous events with 
measured but increased levels of sophistication. I believe this 
approach would help us learn more about the People's Liberation Army 
(PLA), break down barriers to understanding, and reduce potential for 
conflict.
    Question. How do you assess the current cross-Strait relationship, 
and how can we help to prevent miscalculation by either side?
    Answer. I assess the situation as stable. However, I am also 
mindful miscalculation is possible. If confirmed, I will remain 
particularly attentive to any military quantitative and qualitative gap 
between China and Taiwan.
    Question. China's economy is growing by as much as 10 percent per 
year, and China is using that economic growth to fund a substantial 
military modernization.
    In your view, what is China's intent in pursuing such a rapid 
military modernization?
    Answer. I believe it is clear China is seeking capabilities beyond 
those needed for a Taiwan situation, but the lack of transparency makes 
intent difficult to discern. If confirmed, I would seek to continue 
improvements with U.S.-PLA military-to-military interaction to better 
understand Chinese intentions.
    Question. On April 1, 2001, a Chinese jet collided in mid-air with 
a U.S. Navy EP-3 aircraft endangering the U.S. personnel and resulting 
in the death of the Chinese pilot.
    Describe the steps that have been taken to prevent incidents of 
this nature in the future. What additional efforts, if any, do you 
believe may be necessary?
    Answer. I understand that under Admiral Fallon's watch, PACOM 
conducted the first two Search and Rescue Exercises with People's 
Republic of China (PRC) forces. Such events--which stress language 
independent protocols, fixed wing maritime patrol craft, and ``free 
play''--increase safety of all sailors and airmen. I recognize this 
will be a long-term educational process. If confirmed, I would continue 
similar efforts in the future to expose as many PLA sailors and airmen 
as possible to these fundamental and inherently stabilizing procedures.
    Question. In your view, is there the potential for similar 
dangerous incidents with China to occur at sea or elsewhere?
    Answer. There is always potential, however, I believe it is less 
likely than in the past.
    Question. If confirmed, what steps, if any, would you take to 
prevent incidents?
    Answer. If confirmed, I would consider an international agreement 
similar to the ``Incidents At Sea'' protocols we developed with the 
Soviet Union.
    Question. On January 11, 2007, China used a ground-based missile to 
hit and destroy one of its weather satellites in an anti-satellite test 
creating considerable space debris and raising serious concerns in the 
international community.
    What is your view of China's purpose in conducting this test?
    Answer. I do not know China's purpose. However, the test was 
unfortunate and inconsistent with their stated peaceful policy. Chinese 
actions endangered international satellites, which support the world's 
economy, and created considerable debris that increase the risk to 
human spaceflight.
    Question. What do you see as the implications of this test for the 
U.S. military, for U.S. national security, and for U.S. interests in 
space?
    Answer. The foremost implication is confirmation that Chinese anti-
satellite capabilities can be a threat to international space assets.
    Question. What are your views regarding the potential weaponization 
of space?
    Answer. Consistent with U.S. policy and international 
understandings, I support the rights of states to have unhindered 
passage through, and operations in space without interference. I also 
support our ability to defend and protect our space systems.

                                 TAIWAN

    Question. What are the priorities, in your view, for U.S. military 
assistance to Taiwan?
    Answer. If confirmed, I will remain fully committed to the U.S. 
obligation to provide Taiwan with the necessary capabilities for its 
defense. I would continue to focus on efforts to modernize Taiwan's 
defensive capability and improve the joint operating capacity of the 
Taiwan armed forces.
    Question. What is your view of the relationship between the type of 
assistance we offer Taiwan and regional stability?
    Answer. PACOM should focus on Taiwan's capability to defend itself 
and avoid characterizing the Taiwan military's modernization as 
offensive. A Taiwan that can defend itself enhances regional stability.

                      REPUBLIC OF THE PHILIPPINES

    Question. What is your view of the current state of U.S.-Philippine 
military-to-military relations?
    Answer. Our relationship is good, and our long and consistent 
military engagement with the Philippines is bearing fruit in the form 
of Philippine counterterrorism performance and success in the field.
    Question. What is your view of the effectiveness of the Special 
Operation Forces assistance being provided to the Philippine military 
in its fight against terrorist groups?
    Answer. My initial assessment, based on recent successes on the 
island of Jolo, is the advice and assistance of Special Operations 
Forces have been effective in helping Philippine Security Forces (PSF) 
fight local and international terrorist groups over sustained periods 
in harsh environments.
    Question. What measures or guidelines will you employ, if 
confirmed, to ensure that U.S. personnel do not become involved in 
combat in the Republic of the Philippines?
    Answer. U.S. Forces are not authorized by either the U.S. or the 
Republic of the Philippines to conduct combat operations in the 
Republic of the Philippines nor to accompany PSF to locations where 
contact with the enemy by U.S. forces is anticipated. If confirmed, I 
will continue to ensure current restrictions prohibiting a combat role 
for U.S. forces are well understood by our personnel at all levels. I 
will confirm in place procedures are sufficiently rigorous.

                               INDONESIA

    Question. Indonesia is a key Asian power, and is the largest Muslim 
country in the world. Consequently, it is important to build on 
opportunities to improve and expand U.S. relations with Indonesia where 
possible.
    What is your understanding of the extent to which the Indonesian 
Government is cooperating with the United States in the global war on 
terrorism?
    Answer. The Indonesian Government is cooperating with the United 
States in the global war on terrorism. President Yudhoyono has enabled 
Indonesian law enforcement to form a successful counterterrorism center 
and make important arrests of terrorist operatives. I also view the 
Indonesia Government's approach to religious tolerance as helpful.
    Question. Is it your understanding that the Indonesian Government 
is cooperating in the investigation into the murder of two American 
school teachers and one Indonesian school teacher in an ambush in Papua 
in August 2002?
    Answer. Yes.
    Question. What is your view of the current state of military-to-
military contacts with Indonesia?
    Answer. U.S. PACOM military-to-military relations with the 
Indonesian armed forces continue to mature and improve. U.S. support 
during the 2004 tsunami and 2006 earthquake responses triggered new 
engagement opportunities for U.S. PACOM.
    Question. Do you favor increased U.S.-Indonesian military-to-
military contacts? If so, under what conditions? Why?
    Answer. As a democracy with a moderate and modernizing vision of 
Islam, Indonesia is a natural partner with the U.S. It is important to 
assist with the development of their military. Engaging in areas of 
common interest while minding the political landscape, the U.S. and 
Indonesia can engage in a consistent programmed manner that does not 
outstrip Indonesia's ability to absorb U.S. assistance.
    Question. What is your view of the commitment of the Indonesian 
military leadership to professionalization of its armed forces, 
adhering to human rights standards, improving military justice, and 
cooperating with law enforcement efforts to investigate and prosecute 
those military personnel accused of human rights abuses?
    Answer. I believe the Indonesian military is committed to education 
and training to improve adherence to human rights standards and 
enforcement of same.
    Question. If confirmed, what would you do to encourage respect for 
human rights and accountability in the Indonesian military?
    Answer. If confirmed, I will ensure U.S. PACOM engagements with the 
Indonesian military continue to encourage respect for human rights, 
accountability, leadership development, and legal education. I will 
also look for opportunities to expand bilateral education exchanges, 
research grants, and language training to help the present and future 
elites of the military.

                                 INDIA

    Question. What is your view of the current state of the U.S.-India 
military-to-military relationship?
    Answer. President Bush has emphasized the U.S. partnership with 
India as among the most important in the region. If confirmed, I would 
seek to complement strategic initiatives with a military-to-military 
program characterized by increased dialogue and more frequent and 
sophisticated exchange and exercises.
    Question. If confirmed, what specific priorities would you 
establish for this relationship?
    Answer. If confirmed, my priorities for the U.S.-India military-to-
military relationship will be increasing the scope of exercises and 
exploring opportunities for expanded cooperation in peacekeeping, 
disaster response, and maritime security. Our militaries need to 
continue to build trust and confidence and become more interoperable. 
We should establish agreements and procedures that will allow us to 
build shared doctrine and communications architectures.
    Question. What relationship, if any, do you believe exists between 
the armed groups conducting terrorist attacks in India, and the armed 
groups conducting attacks in Pakistan and Afghanistan?
    Answer. There are reported organizational relationships between 
armed groups conducting attacks in India and Afghanistan, specifically 
among Pakistan-based Lashkar-e-Tayyiba (LT/LeT), al Qaeda, and the 
Taliban. However, I have not sufficiently studied the situation to 
determine relationships between the groups.

                            MISSILE DEFENSE

    Question. What is your understanding of the current relationship 
between U.S. PACOM, U.S. NORTHCOM, and U.S. Strategic Command 
(STRATCOM) with respect to ballistic missile defense deployment and 
operations?
    Answer. Commander, U.S. PACOM supports Commander, U.S. NORTHCOM for 
defense of the homeland. Commander, U.S. PACOM is also responsible for 
providing regional missile defense for U.S. forces forward deployed in 
the U.S. PACOM AOR. Commander, U.S. STRATCOM has overarching 
responsibility for planning, integrating, and coordinating global 
ballistic missile defense. U.S. PACOM coordinates with U.S. NORTHCOM 
and U.S. STRATCOM in the performance of both the regional and global 
missile defense mission.
    Question. What is your understanding of the arrangement whereby 
Aegis-class destroyers and cruisers of the U.S. Pacific Fleet will be 
made available, or dedicated, to ballistic missile defense missions, 
and what impact will this arrangement have on the capability of U.S. 
PACOM and U.S. Pacific Fleet to fulfill their other missions involving 
Aegis-class ships?
    Commander U.S. PACOM and Commander U.S. NORTHCOM have established 
clear command relationships regarding Aegis support to the Ballistic 
Missile Defense mission. Using a system of readiness conditions, both 
Commanders ensure the Aegis ship requirement is properly managed to 
support both the missile defense mission and other missions in the 
Pacific theater.
    Over the past year, these relationships have been tested in several 
challenging real world and exercise scenarios involving regional and 
homeland missile defense missions.
    Question. If confirmed, how would you propose to strike an 
appropriate balance between missile defense and non-missile defense 
missions for ships of the U.S. Pacific Fleet (PACFLT)?
    Answer. Missile defense is one of many missions tasked to the 
Commander, PACFLT. If confirmed, I will solicit recommendations from 
Commander, PACFLT, to posture the U.S. PACFLT to execute the missions 
we expect the Fleet to perform. Additionally, I will continue U.S. 
PACOM efforts to integrate Patriot Advance Capabilities-3 (PAC-3), 
Forward Based X-Band Radar Transportable (FBX-T), and Terminal High 
Altitude Area Defense (THAAD) to improve theater-wide capability and 
reduce the reliance on Aegis platforms.

                       SPECIAL OPERATIONS COMMAND

    Question. What is your understanding of the requirements for 
coordination and cooperation between Special Operations Command (SOCOM) 
teams working to fulfill the global terrorism mission, U.S. PACOM, and 
the Ambassadors in the relevant countries?
    Answer. Coordination and cooperation between U.S. PACOM, 
Ambassadors, and SOCOM teams remains essential to success in the global 
war on terror. Commander, U.S. PACOM, assumes Operational Control 
(OPCON) of Special Operations Forces once those forces enter the AOR. 
In all cases, Ambassadors remain responsible for activities in their 
respective country, to include Theater Security Cooperation activities 
involving Special Operations Forces. As a result, the military 
commander exercising OPCON is required to coordinate activities with 
the respective Ambassador.
    Additionally, coordination with U.S. SOCOM and Country Ambassadors 
continues even after OPCON has been assumed by Commander, U.S. PACOM. 
In certain circumstances, U.S. SOCOM may retain OPCON of forces 
conducting specialized missions or crossing geographic combatant 
commander boundaries.
    Question. If confirmed, would you seek to change any aspects of 
these requirements?
    Answer. If confirmed, I do not foresee recommending changes in the 
current command and support relationships.
    Question. Do you see the need for any changes in the assignment and 
OPCON of Special Operations within the SOCOM area of operations?
    Answer. The Commander, U.S. SOCOM developed and the Secretary of 
Defense recently approved the Global Special Operations Forces Posture 
initiative, which significantly changes assignment and OPCON of current 
regionally based Special Operations Forces to a continental United 
States-based, forward rotational presence model. Commander, U.S. SOCOM, 
assesses this will provide geographic combatant commanders with better 
trained Special Operations Forces while maintaining their regional 
expertise and reducing the current high personnel tempo. At this time, 
it would be premature for me to recommend changes.

                         TECHNOLOGY PRIORITIES

    Question. U.S. PACOM has been active in the Advanced Concept 
Technology Development process and currently has several projects on 
the transition list, including the future tactical truck system and 
theater effects-based operations.
    If confirmed, what steps would you expect to take to make your 
requirements known to the department's science and technology (S&T) 
community to ensure the availability of needed equipment and 
capabilities in the long-term?
    Answer. If confirmed, I will support efforts to strengthen the 
relationship between the command and the S&T community. In so doing, 
PACOM would help researchers better understand operational problems and 
the command would gain better insight into solutions maturing through 
Service efforts. I plan to use the Integrated Priority List as the 
foundation for these discussions.
    JCTDs will continue to be an important part of meeting S&T 
requirements but I plan to expand the approach. In particular, I will 
explore new relationships with S&T programs worldwide to meet 
requirements. I expect these efforts will include cooperative 
technology development with countries in our AOR; participation of 
Services S&T personnel in U.S. PACOM exercises; seminars with 
laboratories and warfighting centers for direct engagement with 
planners.

                         EXERCISES AND TRAINING

    Question. What is your assessment of the current U.S. PACOM 
training and exercise program, including those designed to train 
personnel for peace and stability operations?
    Answer. My initial impression is the U.S. PACOM exercise program 
has been highly effective as evidenced by successful disaster relief 
operations, responsive support to war on terror operations in Iraq and 
Afghanistan, and the improvements in the quality and capacity of 
regional peace support operations forces through the Global Peace 
Operations Initiative.
    I recognize the importance of a rigorous training and exercise 
program. In U.S. PACOM, training and exercises will continue to receive 
emphasis because of their value in maturing U.S. readiness and 
capabilities and improving our ability to operate with allies and 
partners in the region.
    Question. Do you believe that the PACOM's training and exercise 
program currently has adequate funding and personnel resources?
    Answer. I do not yet have a full appreciation of the funding and 
resource status of the U.S. PACOM training and exercise program. If 
confirmed, I will ensure resources are effectively used and advocate 
for additional resources, when necessary.
    Question. What are your views on how the PACOM, in concert with the 
Joint Forces Command (JFCOM), could improve its training and exercise 
program, including training and exercises for peace and stability 
operations?
    Answer. I view collaboration with U.S. JFCOM and the continuous 
assessment such interaction fosters as central to improving the 
command's training program. I also anticipate the new Pacific 
Warfighting Center, when integrated into JFCOM's global grid of 
warfighting centers, will allow PACOM and JFCOM to continue to 
cooperatively develop transformational training concepts for 
traditional warfighting as well as peace and stability operations.

    PRISONER OF WAR (POW)/MISSING IN ACTION (MIA) ACCOUNTING EFFORTS

    Question. The Joint POW/MIA Accounting Command (JPAC), U.S. PACOM, 
is critical to the recovery and identification of remains of missing 
military members. Recovery of remains of U.S. servicemembers from World 
War II, the Korean War, and the Vietnam War continue to be a very high 
priority.
    What is your understanding of the responsibilities of JPAC, U.S. 
PACOM, and its relationship to the Defense Prisoner of War and Missing 
Personnel Office?
    Answer. JPAC conducts operations to support accounting of personnel 
unaccounted for as a result of hostile acts. U.S. PACOM provides higher 
headquarters support and direction, and interface between JPAC and the 
Joint Staff and Office of the Secretary of Defense. The Defense POW/
Missing Personnel Office (DPMO) exercises policy, control, and 
oversight within DOD. DPMO and JPAC coordinate directly on routine POW/
MIA issues.
    Question. If confirmed, what steps, if any, would you take to 
enhance POW/MIA recovery efforts in the AOR of the U.S. PACOM?
    Answer. JPAC resources and accounting efforts are focused not only 
in the PACOM region, but throughout the world. If confirmed, I will 
encourage full cooperation by the host nations where we conduct POW/MIA 
activities and continue to reinforce U.S. Government priorities and 
commitment in our accounting and recovery efforts with leaders of these 
countries and respective U.S. Ambassadors.
    Question. If confirmed, what steps would you take, if any, to 
assess the adequacy of resources available for this work?
    Answer. If confirmed, I will provide JPAC the full support of the 
U.S. PACOM in the conduct of their mission, and continuously assess the 
adequacy of resources in the performance of this critical and important 
mission. I will also ensure existing resources maximize mission 
accomplishment.
    Question. What is your understanding of the status of the report 
due March 1, 2007, relating to the JPAC, pursuant to Senate Report 109-
254?
    Answer. I understand the report has been drafted and is currently 
being staffed. If confirmed, I will review the draft document and will 
be prepared to provide comment.

                            QUALITY OF LIFE

    Question. Combatant commanders are responsible for establishing and 
sustaining a high quality of life for military personnel and their 
families assigned within their AOR.
    If confirmed, how would you define and ensure appropriate resources 
are available for quality of life programs for military members and 
their families within the U.S. PACOM?
    Answer. Quality of life (QoL)/Quality of service (QoS) for our men 
and women is one of my top priorities.
    QoS means providing high quality operating facilities, tools, and 
information technology necessary for our personnel to execute their 
missions and achieve their goals. Achieving and sustaining QoL, 
however, will require both QoS initiatives and a continuous assessment 
of our facilities and our programs--housing, schools, commissary and 
exchange services, medical/dental facilities, Morale, Welfare, and 
Recreation programs/facilities, pay and entitlement programs, and 
family and childcare programs. If such assessments identify QoS/QoL 
conditions that are less than our people deserve, I will work with DOD 
to solicit support and garner required resources to rectify the 
deficiencies.
    Question. What is your view of the challenges associated with 
global rebasing on the quality of life of members and their families in 
the U.S. PACOM AOR (including adequate health care services and DOD 
schools)?
    Answer. The biggest challenge will be preserving the QoS/QoL for 
our servicemembers and their families while we realign our forces in 
theater.
    Throughout the transition process, we should focus our efforts on 
maintaining quality housing, DOD schools, commissary and exchange 
services, medical/dental facilities, higher education, work life, and 
family and community support programs for our people. We should sustain 
current levels of service during the transformation `out' phase and 
ensure these systems are in place before families arrive in the area.
    Question. What steps do you believe need to be taken in Guam to 
ensure that adequate services are available to U.S. personnel and their 
dependents?
    Answer. As we plan for increased military development in Guam, we 
must ensure that organizations and agencies that provide services to 
U.S. personnel and their dependents are included in the planning 
process, and adequate funding for expansion of these services is 
provided. The Joint Guam Program Office (JGPO), established by the 
Deputy Secretary of Defense and tasked with executing this 
comprehensive redevelopment effort, is leading the planning process and 
is engaging DOD components and other stakeholders to program and budget 
for adequate services for U.S. personnel and their dependents in Guam. 
If confirmed, I will ensure JGPO is fully informed of U.S. PACOM QoS/
QoL requirements on Guam.

                   POLICIES REGARDING SEXUAL ASSAULT

    Question. As a result of deficiencies in DOD and Service policies 
regarding sexual assault in the Armed Forces, the Department and the 
individual Services are required under section 577 of the Ronald W. 
Reagan National Defense Authorization Act for Fiscal Year 2005 to 
develop comprehensive policies aimed at preventing and responding to 
sexual assaults involving members of the Armed Forces and ensuring, 
among other things, appropriate law enforcement, medical, and legal 
responses, integration of databases to report and track sexual 
assaults, and development of victim treatment and assistance 
capabilities.
    Question. If confirmed as Commander, U.S. PACOM, what steps would 
you take to ensure the Army, Navy, Air Force, and Marine Corps forces 
under your command are appropriately implementing policies aimed at 
preventing sexual assaults and appropriately responding to victims of 
sexual assault?
    Answer. I am strongly committed to ensuring we make every effort to 
protect our people from assault and offer direct, consistent, and 
appropriate responses to victims of sexual assault. If confirmed, I 
will ensure commanders at all levels continue to implement 
comprehensive measures to prevent sexual assault, provide responsive 
care and treatment for victims of sexual assault, and hold accountable 
those who commit the crime of sexual assault.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commander, U.S. PACOM?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Daniel K. Akaka

                        HAWAIIAN SECURITY NEEDS

    1. Senator Akaka. Admiral Keating, the relationship between Pacific 
Command (PACOM) and Northern Command is somewhat unique when it comes 
to homeland security. Now that you are nominated to replace Admiral 
Fallon to be the next Commander of PACOM, what assurances are you able 
to give me that Hawaii's needs will be met in an emergency situation?
    Admiral Keating. I have designated Joint Task Force Homeland 
Defense, under the leadership of United States Army Pacific Commander, 
with responsibility for support of Hawaiian civil authorities. Over the 
last 18 months the U.S. PACOM plan for support of Hawaiian civil 
authorities has been exercised three times. Positive feedback from 
these interactions coupled with the expectation for regular exercises 
in the future give me confidence our plans for defense support of civil 
authorities are both current and credible.

    2. Senator Akaka. Admiral Keating, in addition, what plans do you 
have to ensure that these lines of communications remain open and 
visible in the future?
    Admiral Keating. Joint Task Force Homeland Defense will continue to 
conduct monthly meetings to ensure plans and coordination channels are 
effective. Meeting participants include representatives from the 
military Services and Federal, State, and local governments.
                                 ______
                                 
    [The nomination reference of ADM Timothy J. Keating, USN, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  February 7, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Navy to the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C., section 601:

                             To be Admiral.

    ADM Timothy J. Keating, USN, 0000.
                                 ______
                                 
    [The biographical sketch of ADM Timothy J. Keating, USN, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
        resume of career service of vadm timothy j. keating, usn
Date and place of birth: November 16, 1948; Dayton, Ohio.

Promotions:

  Midshipman, U.S. Naval Academy.....................       28 Jun. 1967
  Ensign, U.S. Navy..................................       09 Jun. 1971
  Lieutenant (junior grade)..........................       09 Dec. 1972
  Lieutenant.........................................       01 Jul. 1975
  Lieutenant Commander...............................       01 Jun. 1980
  Commander..........................................       01 Jun. 1986
  Captain............................................       01 Sep. 1992
  Rear Admiral (lower half)..........................       01 Jul. 1997
  Designated Rear Admiral while serving in billets             Mar. 1999
   commensurate with that grade......................
  Rear Admiral.......................................       01 Aug. 2000
  Designated Vice Admiral while serving in billets          06 Oct. 2000
   commensurate with that grade......................
  Vice Admiral.......................................       01 Nov. 2000
  Designated Admiral while serving in billets               21 Oct. 2004
   commensurate with that grade......................
  Admiral, service continuous to date................       01 Jan. 2005
 


Assignments and duties:

------------------------------------------------------------------------
                                         From                 To
------------------------------------------------------------------------
U.S.S. Leonard F. Mason (DD 852)  Jun. 1971.........  Jun. 1971
 (Assistant Navigator).
Naval Aviation Schools Command,   Jan. 1972.........  May 1972
 Naval Air Station, Pensacola,
 FL (DUINS).
Training Squadron ONE NINE        Jun. 1972.........  Sep. 1972
 (DUINS).
Training Squadron TWO TWO         Sep. 1972.........  Aug. 1973
 (DUINS).
Training Squadron TWO TWO         Aug. 1973.........  Sep. 1974
 (Assistant Schedules/Advanced
 Jet Flight Instructor).
Training Wing TWO, NAS            Sep. 1974.........  Jul. 1975
 Kingsville, TX (Staff Training
 Records/Stats Officer).
Attack Squadron ONE SEVEN FOUR    Aug. 1975.........  Mar. 1976
 (Ready Replacement Officer).
Attack Squadron EIGHT TWO         Mar. 1976.........  Sep. 1978
 (Assistant Aircraft Officer).
Attack Squadron ONE TWO TWO       Sep. 1978.........  May 1980
 (Landing Signal Officer/
 Navigation Phase Instructor).
Commander, Carrier Air Wing ONE   May 1980..........  May 1982
 FIVE (Landing Signal Officer/
 Assistant Safety Officer).
Attack Squadron NINE FOUR         May 1982..........  Jul. 1984
 (Administrative/Operations/
 Maintenance Officer).
Commander, U.S. Pacific Command   Aug. 1984.........  Aug. 1985
 (Flag Lieutenant).
Attack Squadron ONE SEVEN FOUR    Aug. 1985.........  Nov. 1985
 (Replacement Pilot).
XO, Strike Fighter Squadron       Nov. 1985.........  May 1987
 EIGHT SEVEN.
CO, Strike Fighter Squadron       May 1987..........  Jan. 1989
 EIGHT SEVEN.
Commander, Naval Military         Feb. 1989.........  Sep. 1990
 Personnel Command (Head
 Aviation LCDR/JO Assignment
 Branch).
Commander, Carrier Air Wing ONE   Jan. 1991.........  Jul. 1991
 SEVEN (Deputy (Air Wing
 Commander).
Strategic Studies Group Fellow..  Aug. 1991.........  Jun. 1992
CJTF-SWA (Deputy Director of      Oct. 1992.........  Dec. 1992
 Operations).
Commander, Carrier Air Wing NINE  Dec. 1992.........  Nov. 1994
CO, Strike Warfare Center,        Nov. 1994.........  Sep. 1995
 Fallon, NV.
Bureau of Naval Personnel         Sep. 1995.........  Aug. 1996
 (Director, Aviation Officer
 Distribution Division (PERS-
 43)).
Joint Staff (Deputy Director for  Aug. 1996.........  Jun. 1998
 Operations (Current
 Operations)) (J-33).
Commander, Carrier Group FIVE...  Jun. 1998.........  Oct. 2000
Deputy Chief of Naval Operations  Oct. 2000.........  Jan. 2002
 (Plans, Policy and Operations)
 (N3/N5).
Commander, U.S. Naval Forces,     Feb. 2002.........  Oct. 2003
 Central Command/Commander,
 FIFTH Fleet.
Joint Staff (Director)..........  Oct. 2003.........  Nov. 2004
Commander, Northern Command/      Nov. 2004.........  To Date
 Commander, North American
 Aerospace Defense Command.
------------------------------------------------------------------------


Medals and awards:
    Defense Distinguished Service Medal with two Oak Leaf Clusters
    Distinguished Service Medal and one Gold Star
    Legion of Merit with three Gold Stars
    Defense Meritorious Service Medal
    Meritorious Service Medal with one Gold Star
    Air Medal with Second and Third Strike/Flight Awards
    Navy and Marine Corps Commendation with Combat ``V'' and two Gold 
Stars
    Navy and Marine Corps Achievement Medal with one Silver Star
    Joint Meritorious Unit Award
    Navy Unit Commendation
    Meritorious Unit Commendation with two Bronze Stars
    Navy ``E'' Ribbon with two ``E's''
    Navy Expeditionary Medal
    National Defense Service Medal with two Bronze Stars
    Vietnam Service Medal with three Bronze Stars
    Southwest Asia Service Medal with three Bronze Stars
    Global War on Terrorism Expeditionary Medal
    Global War on Terrorism Service Medal
    Humanitarian Service Medal with two Bronze Stars
    Armed Forces Service Medal
    Sea Service Deployment Ribbon with one Silver Star and two Bronze 
Stars
    Republic of Vietnam Campaign Medal
    Kuwait Liberation Medal
    Pistol Marksmanship Medal with Silver ``E''

Special qualifications:
    BA (Physics) U.S. Naval Academy, 1971.
    Designated Naval Aviator, 3 August 1973.
    Designated Joint Specialty Officer, 1988.

Personal data:
    Wife:
      Wanda Lee Keating of Alexandria, VA.

    Children:
      Daniel Patrick Martin (Stepson); Born: 6 February 1969.
      Julie Cathryn Martin Camardella (Stepdaughter); Born: 7 December 
1972.

Summary of joint duty assignments:

------------------------------------------------------------------------
              Assignment                        Dates             Rank
------------------------------------------------------------------------
Commander, U.S. Pacific Command (Flag  Aug. 1984-Aug. 1985....         LCDR
 Lieutenant).
Joint Staff (Deputy Director for       Aug. 1996-Jun. 1998....      RDML
 Operations (Current Operations)) (J-
 33).
Commander, U.S. Naval Forces, Central  Feb. 2002-Oct. 2003....     VADM
 Command/Commander, Fifth Fleet.
Joint Staff (Director)...............  Oct. 2003-Oct. 2004....     VADM
Commander, Northern Command/           Nov. 2004-To Date......      ADM
 Commander, North American Aerospace
 Defense Command.
------------------------------------------------------------------------

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by ADM Timothy J. 
Keating, USN, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Timothy John Keating.

    2. Position to which nominated:
    Commander, United States Pacific Command.

    3. Date of nomination:
    7 February 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    16 November 1948; Dayton, Ohio.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Wanda Lee Doerksen Keating.

    7. Names and ages of children:
    Stepson: Daniel Pratt Martin, 38.
    Stepdaughter: Julie Cathyn Camardella, 34.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Association of Naval Aviation.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Timothy J. Keating.
    This 2nd day of February, 2007.

    [The nomination of ADM Timothy J. Keating, USN, was 
reported to the Senate by Chairman Levin on March 15, 2007, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on March 19, 2007.]
                              ----------                              

    [Prepared questions submitted to Lt. Gen. Victor E. 
Renuart, USAF, by Chairman Levin prior to the hearing with 
answers supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I do not see a need to modify the Goldwater-Nichols Act at 
this time. The fact that several non-military organizations are seeking 
to improve their coordination and mission execution through the 
introduction of reform measures modeled after the Goldwater-Nichols Act 
is a tribute to its enduring success.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Not applicable.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Northern Command (NORTHCOM)?
    Answer. The Commander, U.S. NORTHCOM, is responsible for conducting 
operations to deter, prevent, and defeat threats and aggression aimed 
at the United States, its territories and interests within the assigned 
area of responsibility. As directed by the President or Secretary of 
Defense, the Command is also responsible for providing defense support 
of civil authorities, including consequence management operations.
    Question. What background and experience do you possess that you 
believe qualify you to perform these duties?
    Answer. More than 3\1/2\ decades of experience including 
operational combat service in Operations Desert Storm, Deny Flight, 
both Southern and Northern Watch, Enduring Freedom, and Iraqi Freedom; 
command of a North Atlantic Treaty Organization support group, two 
fighter wings, Joint Task Force-Southwest Asia and 9th Air and Space 
Expeditionary Task Force-Southwest Asia; service as the U.S. Central 
Command Director of Operations; and Vice Commander, Pacific Air Forces 
provide a solid foundation for assuming command of U.S. NORTHCOM. 
Additionally, my previous assignment as the Director of Strategic Plans 
and Policy for the Joint Staff has reinforced the value of teamwork and 
having a close working relationship with other combatant commands, the 
military Services, National Guard Bureau (NGB), defense agencies, other 
U.S. Government organizations, and international organizations.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
U.S. NORTHCOM?
    Answer. If confirmed, I will continuously seek to further a better 
understanding of and effective information exchange with the other 
combatant commands and our international, Federal, State, and 
interagency partners to increase our ability to work collaboratively 
together in the areas of homeland defense and civil support.

                             RELATIONSHIPS

    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the commanders of the combatant 
commands. Other sections of law and traditional practice, however, 
establish important relationships outside the chain of command. Please 
describe your understanding of the relationship of the Commander, U.S. 
NORTHCOM, to the following officials:
    The Secretary of Defense.
    Answer. The Commander, U.S. NORTHCOM, is responsible to deter, 
prevent, and defeat threats to the United States as directed by the 
Secretary of Defense and the President. Under the authority and control 
of the Secretary and as directed by the Secretary, the Commander is 
also responsible for defense support of civil authorities. The 
Commander is directly responsible to the Secretary of Defense for the 
ability of the Command to carry out its missions. While serving as the 
Senior Military Assistant to the Secretary of Defense, I have 
participated in frequent and cooperative interactions between the 
Secretary of Defense and the Commander of U.S. NORTHCOM. If confirmed, 
I intend to continue the close working relationship between U.S. 
NORTHCOM and the Secretary of Defense.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense is delegated full power and 
authority to act for the Secretary of Defense and to exercise the 
powers of the Secretary on any and all matters for which the Secretary 
is authorized to act pursuant to law. The Commander, U.S. NORTHCOM, 
ensures the Deputy has the information and support he requires.
    Question. The Under Secretary of Defense for Policy.
    Answer. The Under Secretary of Defense for Policy duties include 
formulating defense planning guidance and forces policy, Department of 
Defense (DOD) relations with foreign countries, and DOD's role in 
interagency policymaking. The Commander, U.S. NORTHCOM, works closely 
with the Under Secretary coordinating and exchanging information on 
strategic policy issues involving homeland defense and defense support 
of civil authority issues.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. The Under Secretary of Defense for Intelligence is the 
Secretary's principal advisor on intelligence matters. Commander, U.S. 
NORTHCOM, works closely with the Under Secretary in order to provide 
predictive and actionable threat estimates and timely warning of 
worldwide threats against North America using fused, all-source 
intelligence and law enforcement information that characterizes the 
threat and provides strategic warning to support informed 
decisionmaking.
    Question. The Assistant Secretary of Defense for Homeland Defense.
    Answer. Commander, U.S. NORTHCOM, works routinely with the 
Assistant Secretary of Defense for Homeland Defense and Americas' 
Security Affairs (ASD(HD&ASA)) on homeland defense and defense support 
of civil authorities issues.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman serves as the principal military advisor to 
the President, the Secretary of Defense, and the National Security 
Council. The role of Chairman of the Joint Chiefs of Staff (CJCS) in 
the chain of command of the combatant commands is threefold: 
communications, oversight, and spokesman. Communications between the 
President, Secretary of Defense, and the combatant commanders may pass 
through the CJCS. The Goldwater-Nichols DOD Reorganization Act of 1986 
permits the President to place the Chairman in the communications chain 
and the President has in fact directed that such communications pass 
through the Chairman. Oversight of the activities of combatant commands 
may be delegated by the Secretary of Defense to CJCS. Finally, CJCS is 
the spokesman for the combatant commanders on the operational 
requirements of their commands. Having been a Director on the Joint 
Staff, I have first-hand knowledge of communications between the CJCS 
and the Commander of U.S. NORTHCOM.
    Question. The secretaries of the military departments.
    Answer. Each military department is separately organized under its 
own Secretary and functions under the authority, direction, and control 
of the Secretary of Defense. The military departments are responsible 
for organizing, training, and equipping forces for assignment to the 
Commander, U.S. NORTHCOM, and other combatant commanders. Commander, 
U.S. NORTHCOM, works closely with the Secretaries to ensure homeland 
defense and civil support requirements are met.
    Question. The Chiefs of Staff of the Services.
    Answer. The Chiefs of Staff are responsible for organizing, 
training, and equipping forces for assignment to combatant commands. 
The Commander, U.S. NORTHCOM, is responsible for communicating the 
needs of U.S. NORTHCOM to the Chiefs of Staff.
    Question. The other combatant commanders.
    Answer. The other combatant commanders exercise command authority 
over forces assigned to them as directed by the Secretary of Defense. 
Having served in U.S. Central Command, the Joint Staff, and also for 
the Secretary of Defense, I helped facilitate the multiple and valuable 
interactions that occur between combatant commanders. If confirmed, I 
intend to maintain open lines of communication with the other combatant 
commanders, and to provide support and mutual cooperation whenever 
possible.
    Question. The Chief of the National Guard Bureau.
    Answer. The relationship with the Chief of the NGB is integral to 
the success of U.S. NORTHCOM. U.S. NORTHCOM has regular dialogue on 
issues of the utmost importance to the Nation. There are 43 Army 
National Guard and Air National Guard Title 10 National Guardsmen 
assigned to U.S. NORTHCOM as permanent party. There are also 23 of 30 
authorized Army National Guard personnel that are assigned to U.S. 
NORTHCOM as ``drilling guardsmen.'' Last month, I had the opportunity 
to attend The Adjutants General Conference in Washington, DC, and if 
confirmed, I look forward to working closely with the Chief of the NGB.
    Question. If confirmed, in carrying out your duties, how would you 
work with the Department of Homeland Security (DHS), the Homeland 
Security Council, and other Federal agencies, as well as State and 
local authorities and representatives from the private sector?
    Answer. In fulfilling its civil support role, the military is an 
active member of the Federal response community. However, throughout 
any crisis or consequence management scenario, civilian authorities 
remain in charge and U.S. NORTHCOM's participation is almost always in 
support of a designated primary agency. If confirmed, I will ensure 
U.S. NORTHCOM continues to coordinate and conduct military efforts to 
provide support to save lives, reduce suffering, and restore critical 
infrastructure, while respecting the individual liberties and human 
freedoms guaranteed to all Americans by our Constitution.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the next Commander, U.S. NORTHCOM?
    Answer. Our enemies continue to seek new means of achieving their 
goals and attacking our homeland. Countering asymmetric attacks and 
being prepared to respond to the possible use of a weapon of mass 
destruction on American soil, should our deterrence and prevention 
efforts fail, will continue to be major challenges in the future.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will ensure that U.S. NORTHCOM continually 
reviews and evaluates its plans and operations to effectively address 
the dynamic nature of the threats aimed at its area of responsibility. 
U.S. NORTHCOM will continue to expand a robust exercise and information 
sharing program with its DOD, National Guard, interagency, Federal, 
State, tribal, and local partners to ensure the command is able to 
collectively meet any challenges that arise.
                        mission of u.s. northcom
    Question. What is the mission of U.S. NORTHCOM?
    Answer. Two missions:

        <bullet> Conduct operations to deter, prevent, and defeat 
        threats and aggression aimed at the United States, its 
        territories, and interests within the assigned area of 
        responsibility.
        <bullet> Provide defense support of civil authorities including 
        consequence management operations, as directed by the President 
        or Secretary of Defense.

    Question. How does U.S. NORTHCOM's mission relate to DHS's mission?
    Answer. DHS has overall responsibility for the concerted, national 
effort to prevent and deter terrorist attacks and protect against and 
respond to threats and hazards to the Nation. U.S. NORTHCOM's primary 
mission is to deter, prevent, and defeat threats to the homeland and 
provide defense support of civil authorities when directed by the 
Secretary of Defense or President. Conducting both missions requires 
close collaboration throughout planning and exercise phases, and of 
course, during real-world operations to include pre-incident, crisis, 
and post-incident stages. Ultimately, the capabilities of DHS and U.S. 
NORTHCOM are complementary, focusing on ``unity of effort.''
    Question. Under what circumstances, if any, would you anticipate 
U.S. NORTHCOM would have the lead role in responding to a terrorist 
incident?
    Answer. In accordance with the Maritime Operational Threat Response 
for The National Strategy for Maritime Security, U.S. NORTHCOM will 
assume the lead role for DOD to interdict vessels at sea as part of the 
U.S. Government's active, layered defense of the United States. In 
addition, U.S. NORTHCOM will be responsible for responding to an attack 
on a DOD installation within its area of responsibility. U.S. NORTHCOM 
has a family of plans that detail its support to primary agencies, as 
well as additional plans that direct action in the event that DOD and 
U.S. NORTHCOM takes the lead for the response inside the United States.
    Question. What responsibility, if any, does U.S. NORTHCOM have with 
respect to the Critical Asset Assurance Program?
    Answer. The DOD Critical Asset Assurance Program (DOD Directive 
5160.54) has been superseded by the Defense Critical Infrastructure 
Program (DCIP) (DOD Directive 3020.40). Under the DCIP, U.S. NORTHCOM 
is responsible for establishing a command program for matters 
pertaining to the identification, prioritization, and protection of 
Defense Critical Infrastructure. In coordination with the military 
departments, the defense agencies, DOD field activities, and defense 
sector leads, U.S. NORTHCOM is working to identify and assess critical 
assets and associated infrastructure interdependencies within its area 
of responsibility. Under the DCIP, U.S. NORTHCOM is additionally 
charged with acting to prevent or mitigate the loss or degradation of 
DOD-owned critical assets within its area of responsibility. The 
Command will only take action to prevent or mitigate the loss or 
degradation of non-DOD-owned critical assets at the direction of the 
Secretary of Defense or President.

                       ORGANIZATION AND AUTHORITY

    Question. U.S. NORTHCOM has been assigned responsibility for force 
protection and antiterrorism within its area of responsibility.
    What actions would you take, if confirmed, to mitigate force 
protection vulnerabilities, and what force protection challenges do you 
anticipate you would face within U.S. NORTHCOM's area of 
responsibility?
    Answer. If confirmed, I will continue to place emphasis on 
executing a synchronized and coordinated antiterrorism program and 
force protection mission throughout the area of responsibility. I will 
focus actions on efficient employment of resources for vulnerability 
mitigation and promote procedural steps that enhance antiterrorism 
programs and improve security postures for installations and 
facilities. One challenge will be harnessing new technologies.
    Question. What actions would you take, if confirmed, to ensure 
efficiency in the use of funding for force protection and to prevent 
unnecessary duplication of efforts between U.S. NORTHCOM, the military 
Services, and the office of the Assistant Secretary of Defense for 
Homeland Defense?
    Answer. If confirmed, I will continue enhancements of the Core 
Vulnerability Management Program to eliminate redundancies by mandating 
force protection vulnerabilities be entered into a single database. In 
addition, I will be actively involved in the ASD(HD&ASA) DCIP, which is 
focused on ensuring availability of networked assets essential to 
project, support, and sustain military forces protecting against and 
mitigating the effects of attacks on critical infrastructure and key 
resources.
    Question. What specific forces, if any, have been assigned to U.S. 
NORTHCOM?
    Answer. Day-to-day operations are conducted by four subordinate 
commands:

        <bullet> Joint Force Headquarters National Capital Region is 
        located at Fort McNair in Washington DC and is responsible for 
        land-based homeland defense, civil support, and incident 
        management in the National Capital Region.
        <bullet> Joint Task Force-Civil Support (JTF-CS) is located at 
        Fort Monroe, VA, and commands and controls DOD forces that 
        respond to catastrophic chemical, biological, radiological, 
        nuclear, or high-yield explosive (CBRNE) events.
        <bullet> Joint Task Force Alaska is located at Elmendorf Air 
        Force Base, AK. Military forces in Alaska are under U.S. 
        Pacific Command for normal operations. If Alaska-based forces 
        are needed for homeland defense, consequence management, or 
        civil support operations in Alaska, U.S. NORTHCOM will command 
        and control the forces through Joint Task Force Alaska.
        <bullet> Joint Task Force North is located at Fort Bliss, TX. 
        They support law enforcement agencies in counterdrug, 
        counterterrorism, and border patrol operations along the United 
        States-Canada and southwestern U.S. border.

    U.S. NORTHCOM has few permanently assigned forces. Whenever mission 
requirements dictate, U.S. NORTHCOM requests additional forces from the 
Secretary of Defense, and if approved, receives them from the following 
DOD force providers: U.S. Joint Forces Command and U.S. Pacific 
Command.
    Additionally, the Army, Air Force, and Marine Corps have 
established Service components for U.S. NORTHCOM. These commands are:

        <bullet> U.S. Army North, located at Fort Sam Houston, TX.
        <bullet> U.S. Air Forces Northern located at Tyndall Air Force 
        Base, FL.
        <bullet> U.S. Marine Forces North located in New Orleans, LA.

    The Commander Fleet Forces Command, located at Naval Station 
Norfolk, VA, is designated as the Navy's supporting commander to U.S. 
NORTHCOM.
    Question. How has the assignment of forces to U.S. NORTHCOM changed 
since U.S. NORTHCOM was established on October 1, 2002?
    Answer. Since 1 October 2002, U.S. NORTHCOM deactivated Joint Force 
Headquarters Homeland Security and activated Joint Force Headquarters 
National Capital Region and Standing Joint Force Headquarters North. In 
addition, temporary forces have been apportioned many times for defense 
support of civil authorities missions, such as for hurricane support.

                                 NORAD

    Question. What is the mission of the North American Aerospace 
Defense Command (NORAD)?
    Answer. NORAD's missions are aerospace warning, aerospace control, 
and maritime warning. Aerospace warning consists of detection, 
validation, and warning of an attack against North America and 
aerospace control consists of air sovereignty, air enforcement, and air 
defense of United States and Canadian airspace. Maritime warning is a 
new mission, which consists of processing, assessing, and disseminating 
maritime intelligence and information, and warning of maritime threats 
to, or attacks against North America.
    Question. How has NORAD's mission evolved since the creation of 
U.S. NORTHCOM?
    Answer. Since the creation of U.S. NORTHCOM, the NORAD mission set 
has expanded to include maritime warning, which in turn enables the 
U.S. NORTHCOM maritime defense mission. With respect to ballistic 
missile defense, NORAD now provides ballistic missile warning to U.S. 
NORTHCOM to support its ballistic missile defense mission. To support 
these changes, NORAD has improved its sensor input, command and control 
systems, and ability to respond quickly.
    Question. How does NORAD's mission relate to U.S. NORTHCOM's 
mission?
    Answer. NORAD conducts the aerospace warning, aerospace control, 
and maritime warning missions. The warning provided by NORAD enables 
U.S. NORTHCOM to respond with regard to ballistic missile defense and 
maritime defense.
    Question. How does NORAD's mission relate to the mission of the 
DHS?
    Answer. NORAD supports the DHS by providing aerospace warning and 
maritime warning of threats in the approaches to North America and 
supporting enforcement when called upon by civilian agencies.
    Question. Do you believe that NORAD should have a separate 
operations and planning staff from U.S. NORTHCOM? Why or why not?
    Answer. I am aware of the current initiatives at Headquarters NORAD 
and Headquarters U.S. NORTHCOM to achieve efficiencies through staff 
reorganization. If confirmed, I will analyze and structure the commands 
to achieve these efficiencies in accordance with the law and guidance 
from senior authorities.

                       NORTHCOM JOINT TASK FORCES

    Question. Since the establishment of U.S. NORTHCOM, several multi-
service task forces, e.g., JTF-CS, Joint Task Force-North (JTF-North), 
have been placed under its authority.
    What is the current status of the Joint Task Force organizations 
under U.S. NORTHCOM in terms of organization, planning, personnel 
allocation, and capability?
    Answer. Multi-service units with task force capability under U.S. 
NORTHCOM's authority are Joint Task Force Alaska, JTF-CS, Joint Task 
Force North, Standing Joint Force Headquarters North, and Joint Force 
Headquarters National Capital Region. These task forces are currently 
working with U.S. NORTHCOM on further plans development and refinement 
to enhance execution of existing and emergent homeland defense and 
civil support missions.

                 NORTHCOM COUNTERDRUG RESPONSIBILITIES

    Question. What role does U.S. NORTHCOM play in the Defense 
Department's overall counterdrug mission and organization?
    Answer. U.S. NORTHCOM has execution authority for DOD's priority 
counterdrug activities throughout its area of responsibility. Specific 
tasking is in three broad categories: providing support to civilian law 
enforcement, creating a shared network of intelligence and information 
support, and leveraging theater security cooperation activities, 
specifically with Mexico, to reduce the impact of illicit narcotics 
trafficking on the homeland.
    Question. How are counterdrug operations coordinated across 
combatant command boundaries, particularly with U.S. Southern Command 
(SOUTHCOM) and U.S. Pacific Command?
    Answer. Per the Assistant Secretary of Defense for Special 
Operations/Low-Intensity Conflict Memorandum dated 21 August 2003, 
Joint Interagency Task Force-South (JIATF-South) will execute 
counterdrug detection and monitoring missions in a Joint Operations 
Area (JOA) covering operationally significant portions of the U.S. 
NORTHCOM and U.S. Pacific Command areas of responsibility. JIATF-South 
coordinates counterdrug operations throughout its JOA with forces under 
the operational control of U.S. SOUTHCOM. A Memorandum of Understanding 
between Commander, U.S. NORTHCOM, and Commander, U.S. SOUTHCOM, 
delineates procedures to further coordinate counterdrug-related 
intelligence, information, and operations.
    Question. The National Defense Authorization Act for Fiscal Year 
2004 included a provision (section 1022) that authorizes forces 
providing support to law enforcement agencies conducting counterdrug 
activities to also provide, subject to all applicable laws and 
regulations, support to law enforcement agencies conducting counter-
terrorism activities.
    How has this authority been implemented, and what financial 
resources do these task forces have to conduct counterterrorism 
missions?
    Answer. Joint Task Forces under U.S. NORTHCOM have been granted 
authority to make incidental use of counternarcotics resources, 
capabilities, and structures to detect and interdict terrorists through 
a 26 April 2006 Deputy Secretary of Defense policy memorandum, titled 
``Use of Counternarcotics Funding for Counterterrorism.'' Further, with 
prior Deputy Assistant Secretary of Defense for Counternarcotics 
approval, Joint Task Forces can make non-incidental use of this 
authority. I understand U.S. NORTHCOM appreciates the inherent 
flexibility provided by section 1022 authority, but has not yet 
encountered the need to implement the authority through its primary 
counternarcotics task force, Joint Task Force North.

                   SECURITY RELATIONSHIP WITH MEXICO

    Question. The U.S. NORTHCOM area of responsibility includes the 
land areas of the United States, Canada, and Mexico. The bi-national 
NORAD Command ensures close cooperation between the United States and 
Canada on security and homeland defense matters.
    Do you believe it is important to improve our security cooperation 
with Mexico?
    Answer. Yes. Increased security cooperation among U.S. NORTHCOM, 
SEMAR (Mexican Navy) and SEDENA (Mexican Army) would significantly 
improve national security.
    Question. If so, what would be your goals as Commander of U.S. 
NORTHCOM for such improved relations with Mexico, and how would you 
plan to achieve them?
    Answer. If confirmed, improved relationships with Mexico will be a 
priority. In fact, I hope to visit Mexico by the end of April. I will 
emphasize mutual security interests addressing counterdrug, 
counternarcoterrorism, and border issues through training and 
equipping. Combined exercises to expand cooperative opportunities in 
support of the Security and Prosperity Partnership of North America are 
critical.
chemical, biological, radiological, nuclear, and high yield explosives 

                         RESPONSE CAPABILITIES

    Question. U.S. NORTHCOM has Homeland Defense and Defense Support to 
Civil Authorities missions, including preparation for and response to 
an incident or attack involving CBRNE materials or weapons, in the U.S. 
NORTHCOM area of responsibility.
    If confirmed, how would you approach the challenge of ensuring 
adequate forces, capabilities, and plans to respond to such incidents 
in support of civil authorities?
    Answer. There is nothing more important than defending the 
homeland. If confirmed, I will ensure U.S. NORTHCOM continues to 
coordinate closely with the DOD, the military Services, and the force 
providers to identify military capabilities needed to respond to both 
homeland defense and defense support of civil authorities missions. 
Through a rigorous, realistic program that exercises all facets of the 
National Response Plan, U.S. NORTHCOM will continue to refine processes 
and plans in support of its mission sets.
    Question. There are currently a variety of organizations and units 
intended for CBRNE response and consequence management, including JTF-
CS, the CBRNE Consequence Management Response Force, the U.S. Marine 
Corps Chemical-Biological Incident Response Force (CBIRF), National 
Guard Weapons of Mass Destruction Civil Support Teams (WMD-CST), and 
National Guard CBRNE Enhanced Response Force Package teams.
    If confirmed, how would you plan to manage this mix of capabilities 
to ensure the best possible response force in the event of a CBRNE 
incident, and to avoid unnecessary duplication?
    Answer. Many of the capabilities referenced in fact work together 
under current concepts of operation. The National Guard capabilities 
are designed to respond to local and regional incidents that may be for 
smaller CBRNE incidents and/or ahead of a Federal response. If 
confirmed, I will take a close look at all of the military capabilities 
to ensure we have the appropriate capabilities, in the appropriate 
numbers, in the right locations and States to provide the necessary 
flexibility, agility, and depth of the military response.
    Question. The U.S. Marine Corps CBIRF has not had regular or stable 
funding programmed or budgeted since its creation.
    Do you believe this unit should have regular and stable funding to 
ensure its ability to accomplish its assigned missions?
    Answer. Yes. The United States Marine Corps CBIRF is a unique 
capability for Federal response in the event of a CBRNE incident.

                        NORTHCOM-STATE RELATIONS

    Question. U.S. NORTHCOM has the primary military responsibility to 
provide defense support to civil authorities when directed by the 
President and the Secretary of Defense, including consequence 
management operations. Such military assistance would often support 
State and local emergency response units.
    Do you believe it is important for NORTHCOM to understand the 
emergency response capabilities and plans of the various States before 
a crisis arises, in order to optimize U.S. NORTHCOM's consequence 
management support?
    Answer. Yes. As directed, U.S. NORTHCOM will provide support in an 
emergency when the requirements are beyond the capabilities of civil 
authorities in accordance with the National Response Plan. 
Understanding the capabilities and plans of the States is imperative in 
order to optimize U.S. NORTHCOM planning and operations. State plans 
enhance U.S. NORTHCOM's situational awareness and expedite response to 
incidents.
    Question. If so, how would you plan to ensure that U.S. NORTHCOM 
has sufficient knowledge of State emergency response capabilities, 
including capabilities of National Guard units, and a good working 
relationship with State emergency response leaders?
    Answer. If confirmed, I will ensure U.S. NORTHCOM continues to work 
with its interagency partners to strengthen the overall Federal 
response to a State emergency or disaster. In response to the February 
2006 White House report, The Federal Response to Hurricane Katrina, 
Lessons Learned, which recommended DOD better integrate its 
capabilities with the State National Guard and the overall Federal 
response plan, U.S. NORTHCOM has taken the initiative to get a more in-
depth understanding of State response capabilities. This past year, 
U.S. NORTHCOM, through its Army Service component, U.S. Army North, 
assigned and embedded Defense Coordinating Officers with each of the 10 
Federal Emergency Management Agency regions. Their full-time mission is 
to build relationships and understand the capabilities of both the 
emergency response communities and National Guard of the States in 
their regions. Every day, U.S. NORTHCOM is linked to the National, 
State, and National Guard operations centers to synchronize planning 
and execution of the military contribution to response efforts.

                   FORCE PROVISION FOR U.S. NORTHCOM

    Question. U.S. NORTHCOM has the mission of conducting military 
operations for homeland defense and, when directed by the President or 
Secretary of Defense, for providing military assistance to civil 
authorities, including consequence management for natural disasters and 
CBRNE incidents. Yet U.S. NORTHCOM has relatively fewer military forces 
assigned to it on a permanent basis.
    What is your understanding of how forces are planned to be 
allocated to U.S. NORTHCOM for its full range of mission requirements, 
and what role U.S. Joint Forces Command plays in that process?
    Answer. U.S. NORTHCOM possesses detailed and flexible plans to 
respond and conduct military operations in the homeland, provide 
assistance to primary agencies, or to lead the effort. These plans 
provide comprehensive troop and capability lists to source the plans as 
the Command prepares for an event or response to a no-notice incident. 
U.S. NORTHCOM is closely partnered with U.S. Joint Forces Command, and 
other force providers, at all levels, to ensure the capabilities listed 
in U.S. NORTHCOM's plans are trained and ready to respond.
    Question. If confirmed, how do you intend to ensure that U.S. 
NORTHCOM will have sufficient forces available to it, properly trained 
and equipped, to accomplish its assigned missions, including its Quick 
Reaction Forces and Rapid Reaction Forces?
    Answer. If confirmed, I intend to continue U.S. NORTHCOM's 
excellent working relationship with U.S. Joint Forces Command and other 
force providers. These relationships are synergized as the Command 
works through the challenges of Global Force Management (GFM). I will 
ensure through refinement of plans and requirements, as well as 
participation in the monthly GFM process, homeland defense and defense 
support of civil authorities mission sets are appropriately 
prioritized, sourced, and sourced forces are trained and prepared to 
respond as described in U.S. NORTHCOM plans.
    Question. If confirmed, how will you monitor the personnel, 
equipment, and training readiness of U.S. military forces (Active and 
Reserve) for homeland defense mission-essential tasks in support of 
U.S. NORTHCOM's contingency plans?
    Answer. It is the responsibility of the Services to provide trained 
and ready forces for combatant commands. If confirmed, I will continue 
to ensure trained and ready forces are incorporated into the U.S. 
NORTHCOM exercise program.

                       BALLISTIC MISSILE DEFENSE

    Question. One of U.S. NORTHCOM's missions is the ballistic missile 
defense of the United States. You were Director of Operations for U.S. 
Central Command during the early phases of Operation Iraqi Freedom, 
during which the Patriot missile defense system demonstrated it was 
operationally effective in combat against ballistic missiles.
    Do you agree that it is essential that our deployed ballistic 
missile defense systems are operationally effective?
    Answer. Yes. An operationally effective ballistic missile defense 
system, employed in a layered defense approach, is essential to 
defeating threats ranging from short-range ballistic missiles using 
Patriots and the U.S. Navy's Standard Missile Block 3s to long-range 
ballistic missile threats using the currently deployed Ground-based 
Midcourse Defense (GMD) system operated by U.S. NORTHCOM.
    Question. Do you agree that it is important to conduct 
operationally realistic flight tests to demonstrate operational 
capability and reliability of the GMD system?
    Answer. Yes. It is important to conduct operationally realistic 
flight tests to demonstrate and verify the operational capability and 
reliability of the GMD system. The successful GMD flight test of 
September 1, 2006, FTG-02, was the most operationally realistic, end-
to-end flight test performed to date.

                     U.S. NORTHCOM-DHS RELATIONSHIP

    Question. DHS is still a relatively new Federal agency, and is 
continuing to improve its ability to meet its homeland security 
missions.
    As DHS improves and matures its homeland security capabilities, do 
you expect that will reduce the requirements on U.S. NORTHCOM to 
provide defense support to civil authorities?
    Answer. As U.S. NORTHCOM continues to improve coordination with 
DHS, the Command may capitalize upon efficiencies in order to reduce 
defense support of civil authorities. If confirmed, this is an area I 
will monitor closely.
    Question. What do you consider to be DOD and U.S. NORTHCOM's 
appropriate role vis-a-vis DHS and State authorities in identifying and 
validating the equipment and other requirements associated with 
homeland security missions?
    Answer. If confirmed, I believe DOD and U.S. NORTHCOM should work 
toward a full integration of capabilities and coordinate acquisition 
efforts with all mission partners to ensure unity of effort. 
Identification of equipment and other requirements should be 
synchronized to enhance interoperability and reduce duplication of 
effort.

                             NATIONAL GUARD

    Question. There is still considerable debate about the role the 
National Guard should play in defending the homeland.
    Do you believe that defending the homeland should become the 
National Guard's primary mission?
    Answer. I believe defending the homeland is the most important 
mission for the military, regardless of component status: Active, 
Guard, or Reserves.
    Question. What is the current status of the working relationship 
between U.S. NORTHCOM, the NGB, and individual State National Guard 
headquarters?
    Answer. My understanding is that the working relationship between 
U.S. NORTHCOM, the NGB, and individual State National Guard 
headquarters is strong and growing stronger. U.S. NORTHCOM routinely 
hosts visits by NGB leadership and conducts conferences that bring 
together The Adjutants General (TAGs) of many States for planning, 
exercising, and training exchanges. Additionally, the current commander 
visits TAGs and State leadership during his travels around the country. 
If confirmed, I intend to continue to work closely and personally with 
the TAGs and Governors and strengthen current relationships.
    Question. If confirmed, what type of liaison relationships for 
planning and operational purposes would you advocate between U.S. 
NORTHCOM, DHS, Federal, State, and local first responders, and National 
Guard units under State authority?
    Answer. Throughout U.S. NORTHCOM's history, the Command has worked 
closely and continually with DHS, Federal, State, and local first 
responders, and National Guard units under State authority in 
capacities ranging from planning and exercising to conducting and 
collaborating on real-world operations. Recent progress in such 
relationships has been exponential and if confirmed, I intend to ensure 
this momentum continues.
    Question. Recent changes to the Insurrection Act, 10 U.S.C. section 
333, included in section 1076 of the John Warner National Defense 
Authorization Act for Fiscal Year 2007 clarified the President's 
authority to call up the National Guard to perform Federal service 
under circumstances resulting in the inability of State government's to 
maintain public order.
    What is your view of these changes?
    Answer. I have reviewed the changes to the former Insurrection Act. 
From my perspective at the execution level, if confirmed, I will carry 
out the orders of the President, just as I would have done under the 
previous authority.
    Question. Do you think that the foregoing changes have enhanced the 
ability of Commander, U.S. NORTHCOM to respond to emergency situations? 
If so, how?
    Answer. Please see the above answer.
    Question. Do you believe that changes to the ``posse comitatus'' 
doctrine under section 1385 of title 10, U.S.C., and implementing DOD 
and Service regulations, are needed for U.S. NORTHCOM to accomplish its 
mission?
    Answer. No, I do not believe that the Posse Comitatus Act is an 
obstacle to the performance of any U.S. NORTHCOM mission. The various 
statutory exceptions to this act provide sufficient authority for the 
command's support to civil authority, as directed by the President and 
Secretary of Defense.
    Question. The National Guard is presently assisting DHS on the 
southern U.S. border in a mission known as Operation Jump Start. The 
administration proposed last year that up to 6,000 members of the 
National Guard would be deployed on a temporary basis until DHS could 
add additional personnel.
    Do you believe that border security is primarily the responsibility 
of DOD or DHS?
    Answer. Border security is the primary responsibility of DHS.
    Question. In your view, is border security an appropriate mission 
for the National Guard or other DOD forces?
    Answer. I support the President's determination, in consultation 
and coordination with Governors, that it is appropriate for the 
National Guard under command and control of the Governors to conduct 
this mission in support of U.S. Customs and Border Protection.
    Would you support the deployment of National Guard personnel for 
this mission beyond the 2-year period currently proposed, to include 
the rotation of National Guard personnel to support this mission on an 
enduring basis?
    Answer. Since these National Guard forces remain under the commands 
of their respective Governors, I defer to Governors on this issue.
       weapons of mass destruction-civil support teams (wmd-csts)
    Question. In recent years, legislation has been enacted to 
establish additional WMD-CSTs with the goal of ensuring that all 54 
States and territories have a WMD-CSTs within their borders. To date, 
47 of the 55 planned WMD-CSTs have been certified by the DOD to be 
mission capable.
    Question. Do you believe the WMD-CSTs are appropriately organized, 
sized, trained, and equipped to accomplish their assigned missions?
    Answer. Yes. WMD-CSTs are a critical resource to the State response 
and offer the State leadership great flexibility when responding to an 
incident within their areas of responsibility. If confirmed, I will 
ensure U.S. NORTHCOM, through U.S. Army North, continues to validate 
and certify these unique capabilities.
    Question. If not, what changes do you believe are needed?
    Answer. Not applicable.
    Question. What is your view about proposals that the Commander, 
U.S. NORTHCOM, or the Deputy Commander, by law must be a National Guard 
officer?
    Answer. I believe the process to hire the Commander and Deputy 
Commander should allow for the best-qualified officers to compete for 
each of these positions. There are already two National Guard general 
officers serving in U.S. NORTHCOM in positions that are not mandated by 
law to be filled by National Guard officers. Specifically, there is a 
two-star Air National Guard officer serving as the Commander of U.S. 
NORTHCOM's Air Forces Northern in a position that is not mandated by 
law to be a National Guard officer. Similarly, there is a two-star Army 
National Guard officer serving in U.S. NORTHCOM's Army North as the 
Operational Command Post Commander. Manning these positions has been 
done without a legal mandate and selection of each individual was made 
based on each officer being best qualified for the job.
    In addition, the two-star Chief of Staff position in U.S. 
NORTHCOM's headquarters is filled by a two-star Air National Guard 
officer; this billet is a ``Chairman's 10'' position, designated to be 
filled by an officer in the Reserve component, in accordance with 10 
U.S.C. 526 and the National Defense Authorization Act for Fiscal Year 
2000.
    Thus, given that the Chief of Staff position (one of the top three 
positions in U.S. NORTHCOM) already is filled by a member of the 
Reserve component, as well as U.S. NORTHCOM's success in hiring the 
best-qualified officers from the Active and Reserve component, I 
believe the U.S. NORTHCOM Commander and Deputy Commander positions 
should not be mandated by law to be filled by National Guard officers.
    I also believe that the officer development process for both the 
Guard and the Reserve Forces needs to be reviewed. We must ensure that 
select Reserve component officers receive appropriate joint and 
operational exposure earlier in their career such that, at the 
appropriate points in their career, there would be a pool of senior 
leaders that could compete on a best-qualified basis.

                          INFORMATION SHARING

    Question. On June 9, 2004, an incident involving a private aircraft 
entering the National Capital Region airspace led to the evacuation of 
the U.S. Capitol. The emergency apparently resulted from shortfalls in 
the ability of various Federal Government agencies, including the 
Federal Aviation Administration, DHS, and DOD to share information. The 
mission of U.S. NORTHCOM requires rapid, secure, and effective 
communication with a variety of Federal, State, and local entities.
    What steps would you take, if confirmed, to ensure that rapid 
communication is ensured with other Federal agencies and with State 
entities?
    Answer. The information-sharing capabilities and protocols 
practiced by U.S. NORTHCOM and NORAD have improved significantly over 
the last few years. Plans, exercises, and continual information-sharing 
exchanges have all helped to identify weaknesses and refine operations. 
Additionally, U.S. NORTHCOM has procured state-of-the-art 
communications equipment to best effect communications and 
interoperability with partners during a crisis.
    Question. Are there any legal impediments that exist that slow or 
prevent the rapid dissemination of information gained by military 
components with other Federal, State, or local entities, or the private 
sector?
    Answer. I am unaware of any legal impediments that slow or prevent 
the rapid dissemination of information to external agencies.
      intelligence sharing/national counterterrorism center (nctc)
    Question. What is the U.S. NORTHCOM's role and involvement in 
developing intelligence assessments regarding terrorist threats?
    Answer. U.S. NORTHCOM draws upon foreign intelligence, intelligence 
derived from law enforcement agencies, and open source information to 
assess the foreign terrorist threat to the area of responsibility. The 
Federal Bureau of Investigation (FBI), Central Intelligence Agency, 
National Security Agency (NSA), and DHS are the primary sources of 
intelligence and Defense Intelligence Agency (DIA), NCTC/Interagency 
Intelligence Committee on Terrorism, DHS and FBI-finished threat 
assessments are furnished to U.S. NORTHCOM elements as appropriate. 
Threat assessments are provided to the Commander and senior staff, as 
well as U.S. NORTHCOM component commands.
    Question. What intelligence agencies are involved in providing 
input to U.S. NORTHCOM's staff for the development of intelligence 
assessments?
    Answer. U.S. NORTHCOM terrorism analysts rely on a broad 
collaborative network of counterterrorism organizations when developing 
terrorist threat assessments. Terrorism analysts from NCTC, FBI, DIA, 
DHS, and its components (U.S. Immigration and Customs Enforcement, U.S. 
Customs and Border Protection, the U.S. Coast Guard), NSA, and the 
other combatant commands all provide inputs to the threat assessment 
process.
    Question. What is the current nature of the relationship between 
U.S. NORTHCOM and the NCTC, and what will that relationship be in the 
future?
    Answer. U.S. NORTHCOM receives NCTC-finished intelligence and the 
U.S. NORTHCOM Operational Intelligence Watch participates in a daily 
NCTC Operations Center video teleconference regarding new terrorism 
reporting. U.S. NORTHCOM is participating jointly with U.S. Central 
Command and DIA in an NCTC process improvement initiative to optimize 
the information-sharing environment. In addition, the NCTC plays a 
critical role in supporting NORAD's aerospace control mission. For 
Operation Noble Eagle responses, the NCTC participates in Noble Eagle 
Conferences and provides real-time intelligence as applicable. If 
confirmed, I will continue to support a strong relationship with NCTC.
    Question. Does U.S. NORTHCOM have representatives located at the 
NCTC on a daily basis? If so, what are their functions and 
responsibilities? If not, why not?
    Answer. U.S. NORTHCOM has a billet for a representative to NCTC. 
The individual assigned is currently working at DIA. I understand he 
will return to NCTC after the successful completion of the process 
improvement initiative noted above, which will determine his new 
duties.
    Question. How do posse comitatus, privacy restrictions, and other 
laws and regulations concerning the collection of intelligence within 
the U.S. affect the way U.S. NORTHCOM receives and uses intelligence?
    Answer. U.S. NORTHCOM can accomplish its intelligence mission 
within the framework of existing laws and policy and is vigilant in 
ensuring all intelligence activities conducted in support of its 
mission comply with intelligence oversight law and policy. All 
intelligence activities conducted in support of U.S. NORTHCOM 
operations are reviewed by legal staff to ensure they are conducted in 
accordance with law and policy.

                         CRUISE MISSILE DEFENSE

    Question. How serious do you believe the cruise missile threat is 
to the United States and its territories?
    Answer. I believe the immediate threat is from high-speed 
commercial aviation flying in a low-altitude profile, similar to a 
cruise missile; or possibly an unmanned aircraft system that can be 
built in one's garage. That said, the threat from cruise missiles 
launched by a terrorist organization or rogue nation is also a real and 
increasing, though currently somewhat limited, threat.
    Question. If confirmed, what capabilities would you prioritize to 
address this threat?
    Answer. The key capability to counter this threat is persistent 
wide area air surveillance, which provides timely identification, 
classification, and assessment of tracks of interest critical in the 
defense against cruise missiles. If confirmed, I will advocate for 
continued research and for demonstration of promising technologies to 
enhance our capabilities and support the ongoing Homeland Air and 
Cruise Missile Functional Solutions Analysis. Upon completion, this 
analysis will provide a recommended family of systems to meet our wide 
area air surveillance requirements.

                        CONTINENTAL AIR DEFENSE

    Question. How has the continental air defense mission changed since 
the end of the Cold War and the events of September 11, 2001?
    Answer. The Command's mission has expanded since September 11 to 
protect against domestic airborne threats. NORAD's defense posture is 
now aligned to counter the new threat.
    Question. Do you believe that current U.S. continental air defense 
capabilities are adequate to meet national security needs?
    Answer. Yes. NORAD has adapted to counter the terrorist threat 
posed to the United States and Canada through improvements to 
surveillance and communications systems and through better coordination 
and information sharing with the interagency community.
    Question. If confirmed, what capabilities and programs would you 
prioritize to address any identified deficiencies?
    Answer. If confirmed, I will ensure NORAD continues to enhance the 
capabilities it has under Operation Noble Eagle to respond to a terror 
event and quickly increase air defense posture during a crisis. Future 
program priorities include Homeland Air and Cruise Missile Defense, 
wide area air surveillance, and improving the North American air 
surveillance picture not only for DOD, but also for our interagency 
partners--notably the National Capital Region Coordination Center and 
U.S. Customs and Border Protection.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commander, U.S. NORTHCOM, and 
Commander, NORAD?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Daniel K. Akaka

                       HAWAIIAN NATIONAL SECURITY

    1. Senator Akaka. Lieutenant General Renuart, the Department of 
Homeland Security (DHS) works with U.S. Northern Command (NORTHCOM) to 
address issues of national security. However, my State of Hawaii falls 
under the jurisdiction of U.S. Pacific Command (PACOM). While I have 
asked this question before to your predecessor, Admiral Keating, who 
did understand and assured me that PACOM's interest and that of the 
Pacific were being addressed, I have also asked this question to 
Secretary Chertoff of DHS and he was unaware that NORTHCOM did not 
include Hawaii and that it was under PACOM. In this regard, what 
efforts will you make to ensure that Hawaii's interests are heard?
    General Renuart. The first priority of every combatant commander is 
to protect the homeland. To that end, U.S. PACOM has developed plans 
for homeland defense and civil support of Hawaii, which falls into 
Commander, U.S. PACOM's area of responsibility. U.S. NORTHCOM has 
coordinated on U.S. PACOM's plans to ensure seamless coverage for 
homeland defense and civil support across the United States and its 
territories.

                            STATE ASSISTANCE

    2. Senator Akaka. Lieutenant General Renuart, as you probably know, 
it has been reported in the media that the U.S. Government's response 
to Hurricane Katrina was not adequate or quick enough. What assurances 
can you give State and local officials that NORTHCOM will be prepared 
to respond should a State Governor request military assistance during a 
disaster?
    General Renuart. U.S. NORTHCOM is prepared to support a designated 
primary Federal agency in the wake of disasters with specialized skills 
and assets that can rapidly stabilize and improve the situation in the 
event that the President approves a State Governor's request for 
Federal assistance. All Department of Defense (DOD) support is provided 
at the direction of the President or Secretary of Defense and in 
accordance with the National Response Plan. When requested, U.S. 
NORTHCOM will be fully engaged in supporting operations to save lives, 
reduce suffering, and protect the infrastructure of our homeland.
    U.S. NORTHCOM has taken significant steps to improve our response 
capabilities based on lessons learned and findings in the House Select 
Bipartisan Committee to Investigate the Preparation for and Response to 
Hurricane Katrina report titled ``A Failure of Initiative,'' the White 
House Report titled ``The Federal Response to Hurricane Katrina Lessons 
Learned,'' and the Senate Committee on Homeland Security and 
Governmental Affairs Report titled ``Hurricane Katrina: A Nation Still 
Unprepared.''
    U.S. NORTHCOM has incorporated the Joint Staff standing execution 
order (EXORD) for Defense Support of Civil Authorities into operational 
planning for the upcoming hurricane season. The EXORD provides the U.S. 
NORTHCOM Commander authority, in coordination with supporting commands 
and military departments, to: deploy Defense Coordinating Officers 
(DCOs) and their staffs; establish operational staging areas, Federal 
mobilization centers, and DOD base support installations in support of 
the Federal Emergency Management Agency (FEMA); and deploy airborne 
fire fighting systems upon receipt of a request for assistance from a 
Federal primary agency. In addition, the U.S. NORTHCOM Commander can 
place the following assets on 24-hour prepare to deploy orders: medium 
and heavy lift support helicopters, fixed-wing search aircraft, 
communications support packages, patient movement capability, a Joint 
Task Force for command and control of Federal military forces, a 
forward surgical team, and a deployable distribution operations center.
    To further improve our response capability, we have:

        <bullet> Integrated full-time DCOs and their staffs into all 10 
        Federal Emergency Management Agency (FEMA) regions Developed 
        pre-scripted requests for assistance for FEMA, in collaboration 
        with DOD and DHS, based on anticipated capability requirements.
        <bullet> Purchased, in conjunction with DHS, cellular network 
        packages that include portable cell towers, over 100 cell 
        phones, over 40 laptop computers, a satellite terminal, and 
        radio bridging. U.S. NORTHCOM also procured 300 satellite 
        phones for distribution per request of the primary agency in 
        support of State officials.
        <bullet> Identified a series of deployed communication options 
        from each Service that can quickly adapt to support FEMA's pre-
        scripted mission assignments and the needs of a request for 
        forces from a joint task force, in addition, we drafted 
        communications request for forces and identified assets from 
        the Services and Joint Communications Support Element (e.g., 
        voice, video, and data packages to support a small command post 
        or large joint task force).
        <bullet> Conducted Exercise Vigilant Shield 06 from 4-14 
        December 2006. This exercise tested U.S. NORTHCOM's command and 
        control capability to provide defense support to the Nation 
        during a variety of simulated scenarios to include a potential 
        limited ballistic missile attack, a maritime domain threat, and 
        support to a lead agency in response to a simulated nuclear 
        weapons accident.
        <bullet> Conducted Exercise Ardent Sentry 06 from 8-19 May 
        2006. This exercise focused on both homeland defense and 
        defense support of civil authorities and included a Category 3 
        hurricane striking the Gulf Coast in the vicinity of New 
        Orleans.
        <bullet> Hosted or participated in more than 140 conferences or 
        tabletop exercises since Hurricane Katrina.
        <bullet> Developed procedures with Air Forces Northern to 
        increase visibility and provide deconfliction of airborne 
        rescue assets.
        <bullet> Coordinated on a damage assessment concept of 
        operations with DHS and the National Geospatial-Intelligence 
        Agency. Collaboration is ongoing on pre- and post-hurricane 
        imagery collection processes between DOD and interagency 
        partners, as well as dissemination methods for imagery 
        products.
        <bullet> Deployed information management mobile training teams 
        to demonstrate and instruct the use of collaborative tools and 
        information sharing processes to our DOD and interagency 
        partners. Our teams have trained National Guard Bureau Joint 
        Operations Center personnel and the staffs of 28 National Guard 
        Joint Force Headquarters-State, 11 of which are located in 
        hurricane regions. We are also coordinating with U.S. Army 
        North to train DCOs and Defense Coordinating Elements on the 
        use of collaborative tools, process and procedures to 
        facilitate greater information sharing. This initiative started 
        in late 2003 and is an ongoing process.
        <bullet> Coordinated with the U.S. Coast Guard and National 
        Guard Bureau on a Joint Search and Rescue Center for large-
        scale operations.

    3. Senator Akaka. Lieutenant General Renuart, how will you ensure 
that the needs of State and local officials are addressed in NORTHCOM's 
disaster relief plans?
    General Renuart. U.S. NORTHCOM and its component commands 
coordinate with State and local authorities, including the National 
Guard, to gain situational awareness of their civil support and 
consequence management efforts. For example, Joint Task Force-Civil 
Support (JTF-CS) is U.S. NORTHCOM's subordinate component for chemical, 
biological, radiological, nuclear, or high-yield explosive consequence 
management operations. To develop specific plans for specific events, 
JTF-CS used the Nunn-Lugar-Domenici cities as a baseline to evaluate 
all levels of emergency response to estimate the scope and magnitude 
and expedite U.S. NORTHCOM's supporting response. U.S. NORTHCOM, in its 
planning for homeland defense and defense support of civil authorities, 
takes into consideration the role of the National Guard as first 
responders for any crisis.
                                 ______
                                 
    [The nomination reference of Lt. Gen. Victor E. Renuart, 
Jr., USAF, follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 February 26, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Air Force to the grade indicated while assigned to a position of 
importance and responsibility under title 10, U.S.C., section 601:

                             To be General

    Lt. Gen. Victor E. Renuart, Jr., 0000.
                                 ______
                                 
    [The biographical sketch of Lt. Gen. Victor E. Renuart, 
Jr., USAF, which was transmitted to the committee at the time 
the nomination was referred, follows:]

      Biographical Sketch of Lt. Gen. Victor E. Renuart, Jr., USAF

    Lt. Gen. Victor E. Renuart, Jr., is the Senior Military Assistant 
to the Secretary of Defense, Washington, DC. He serves as the principal 
immediate office adviser to the Secretary in all matters pertaining to 
the department. In addition to accompanying the Secretary on his travel 
and coordinating support to these trips, he serves as the Senior 
Military Liaison to the military Services, the Joint Chiefs of Staff, 
and the combatant commands. He also ensures timely execution of 
taskings as directed by the Secretary of Defense.
    The general entered the Air Force in 1971 following graduation from 
Indiana University. He was commissioned through the Officer Training 
School in 1972. He has commanded a North Atlantic Treaty Organization 
(NATO) support group and two fighter wings. He served as Commander of 
the 76th Fighter Squadron during Operations Desert Shield and Desert 
Storm, and supported Operation Deny Flight as Director of Plans for the 
NATO Combined Air Operations Center at Headquarters 5th Allied Tactical 
Air Force. In addition, he commanded Joint Task Force-Southwest Asia 
and 9th Air and Space Expeditionary Task Force-Southwest Asia, 
responsible for control of Operation Southern Watch. The general has 
served as the U.S. Central Command Director of Operations, wherein he 
oversaw the planning and execution of all joint and allied combat, 
humanitarian assistance and reconstruction operations for Operations 
Enduring Freedom and Iraqi Freedom. He also served as Vice Commander, 
Pacific Air Forces, where he was responsible for Air Force and Air 
Component Command activities for the Commander, U.S. Pacific Command. 
The general has flown combat missions in Operations Desert Storm, Deny 
Flight, Northern Watch, and Southern Watch.
    Prior to assuming his current position, General Renuart was the 
Director of Strategic Plans and Policy, the Joint Staff. He provided 
strategic direction, policy guidance, and planning focus to develop and 
execute the National Military Strategy in support of worldwide national 
security operations, politico-military affairs, international 
negotiations, and organizational issues through coordination with the 
combatant commands, the Services, Office of the Secretary of Defense, 
defense agencies, other U.S. Government agencies, and international 
organizations.

Education:
    1971  Bachelor of Science degree in production and industrial 
management, Indiana University, Bloomington, IN.
    1975  Master of Arts degree in psychology, Troy State University, 
Troy, AL.
    1977  Distinguished graduate, Squadron Officer School, Maxwell Air 
Force Base (AFB), AL.
    1979  Air Command and Staff College, Maxwell AFB, AL.
    1992  Army War College, Carlisle Barracks, PA.
    1997  Senior Officers in National Security Program, Johns Hopkins 
University, Baltimore, MD.

Assignments:
    January 1972-March 1973, student, undergraduate pilot training, 
Laredo AFB, TX.
    March 1973-July 1976, T-37 instructor pilot, Craig AFB, AL.
    July 1976-September 1979, Assistant Professor of Aerospace Studies, 
University of Notre Dame, South Bend, IN.
    September 1979-April 1980, student, AT-38 and A-10 training, 
Holloman AFB, NM, and Davis-Monthan AFB, AZ.
    May 1980-June 1982, A-10 instructor pilot and flight commander, 
92nd Tactical Fighter Squadron, 81st Tactical Fighter Wing, Royal Air 
Force Bentwaters, England.
    June 1982-July 1984, operations officer, Detachment 2, 81st 
Tactical Fighter Wing, Detachment 2, Leipheim Air Base, West Germany.
    July 1984-November 1985, operations inspector, Office of the 
Inspector General, Headquarters U.S. Air Forces in Europe, Ramstein AB, 
West Germany.
    November 1985-September 1986, Executive Officer to the Inspector 
General, Headquarters U.S. Air Forces in Europe, Ramstein AB, West 
Germany.
    September 1986-July 1991, Chief of Wing Inspections, 23rd Tactical 
Fighter Wing, later, Operations Officer, later, Commander, 76th 
Tactical Fighter Squadron, England AFB, LA.
    July 1991-July 1992, student, Army War College, Carlisle Barracks, 
PA.
    July 1992-March 1993, Director of Assignments, Deputy Chief of 
Staff for Personnel, Headquarters U.S. Air Forces in Europe, Ramstein 
AB, Germany.
    March 1993-October 1994, Commander, Headquarters Support Group, 
Allied Air Forces Central Europe, NATO, Ramstein AB, Germany.
    October 1994-June 1995, Executive to the Assistant Chief of Staff 
for Operations, Operations Directorate, and senior U.S. representative, 
Allied Air Forces Central Europe, NATO, Ramstein AB, Germany (November 
1994-May 1995, Director of Plans, NATO Combined Air Operations Center, 
5th Allied Tactical Air Force, Vicenza, Italy).
    June 1995-April 1996, Assistant Director of Operations, 
Headquarters U.S. Air Forces in Europe, Ramstein AB, Germany.
    April 1996-June 1998, Commander, 52nd Fighter Wing, Spangdahlem AB, 
Germany.
    July 1998-March 2000, Commander, 347th Wing, Moody AFB, Georgia.
    April 2000-May 2001, Commander, Joint Task Force-Southwest Asia and 
Commander, 9th Air and Space Expeditionary Task Force-Southwest Asia, 
U.S. Central Command, Riyadh, Saudi Arabia.
    June 2001-November 2003, Director of Operations (J-3), U.S. Central 
Command, MacDill AFB, FL.
    December 2003-August 2005, Vice Commander, Pacific Air Forces, 
Hickam AFB, HI.
    August 2005-August 2006, Director for Strategic Plans and Policy, 
the Joint Staff, Washington, DC.
    August 2006-present, Senior Military Assistant to the Secretary of 
Defense, Washington, DC.

Flight information:
    Rating: Command pilot.
    Flight hours: More than 3,800, including 60 combat missions.
    Aircraft flown: T-37, AT-38, A-10, F-16, F-15, C-130, and HH-60.

Major awards and decorations:
    Defense Distinguished Service Medal with oak leaf cluster
    Distinguished Service Medal
    Defense Superior Service Medal with oak leaf cluster
    Legion of Merit with oak leaf cluster
    Meritorious Service Medal with four oak leaf clusters
    Air Medal with two oak leaf clusters
    Aerial Achievement Medal with three oak leaf clusters
    Air Force Commendation Medal with oak leaf cluster
    Air Force Achievement Medal with oak leaf cluster

Effective dates of promotion:
    Second Lieutenant, Jan. 12, 1972.
    First Lieutenant, Jan. 12, 1974.
    Captain, Jan. 12, 1976.
    Major, Dec. 1, 1983.
    Lieutenant Colonel, May 1, 1987.
    Colonel, Nov. 1, 1992.
    Brigadier General, Aug. 1, 1997.
    Major General, Aug. 1, 2000.
    Lieutenant General, Jan. 1, 2004.
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Lt. Gen. 
Victor E. Renuart, Jr., USAF, in connection with his nomination 
follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Victor E. Renuart, Jr.

    2. Position to which nominated:
    Commander, Northern Command/Commander, North American Aerospace 
Defense Command.

    3. Date of nomination:
    February 26, 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    26 Nov. 1949; Miami, FL.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Jill Jenner Renuart.

    7. Names and ages of children:
    Ryan Victor Renuart, 32.
    Andrew John Renuart, 29.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the Service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Life Member -- Sigma Chi Fraternity.
    Member -- U.S. Professional Tennis Association.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the Service record 
extract provided to the committee by the executive branch.
    Significant Sig Award--Sigma Chi Fraternity.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-E of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-E 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                             Victor E. Renuart, Jr.
    This 1st day of February, 2007.

    [The nomination of Lt. Gen. Victor E. Renuart, Jr., USAF, 
was reported to the Senate by Chairman Levin on March 15, 2007, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on March 19, 2007.]
                              ----------                              

    [Prepared questions submitted to LTG Robert L. Van Antwerp, 
Jr., USA, by Chairman Levin prior to the hearing with answers 
supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. No. The goals of the Goldwater-Nichols legislation are as 
important today as when the act passed 30 years ago. I continue to 
support these reforms and will be guided by the objectives of this 
important legislation, which promote the effectiveness of military 
operations, strengthen civilian control, provide for more efficient and 
effective use of defense resources, and improve the management and 
administration of the Department of the Army and Department of Defense 
(DOD).
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Not applicable, in view of my previous answer.

                             RELATIONSHIPS

    Question. Please describe your understanding of the relationship of 
the Chief of Engineers to the following offices (for the purpose of 
these questions, the term ``Chief of Engineers'' should be read to 
include Commanding General U.S. Army Corps of Engineers (USACE)):
    The Secretary of Defense.
    Answer. As head of DOD, the Secretary of Defense has full 
authority, direction, and control over all its elements. The Secretary 
exercises this power over the Corps of Engineers through the Secretary 
of the Army, whose responsibility for, and authority to conduct all 
affairs of the Army is subject to the authority, direction, and control 
of the Secretary of Defense. If confirmed, I will cooperate fully with 
the Secretary of Defense in fulfilling the Nation's national defense 
priorities and efficiently administering the Corps of Engineers in 
accordance with the policies established by the Office of the Secretary 
of Defense.
    Question. The Joint Staff.
    Answer. The Joint Chiefs of Staff serve as military advisers to the 
President, the National Security Council, and the Secretary of Defense. 
Subject to the authority, direction, and control of the President and 
the Secretary of Defense, the Joint Chiefs of Staff assist the Chairman 
of the Joint Chiefs of Staff in carrying out the Chairman's 
responsibilities of providing for the strategic direction, strategic 
planning, and contingency planning; advising the Secretary of Defense 
on requirements, programs, and budgets identified by the commanders of 
the unified and specified combatant commands; developing doctrine for 
the joint employment of the Armed Forces; providing for representation 
of the United States on the Military Staff Committee of the United 
Nations; furnishing certain reports to the Secretary of Defense; and 
performing such other duties as may be prescribed by law or by the 
President or the Secretary of Defense. If confirmed, I will cooperate 
fully with the Joint Chiefs of Staff in the performance of their 
responsibilities.
    Question. The Secretary of the Army.
    Answer. As head of the Department of the Army, the Secretary of the 
Army is responsible for, and has the authority to conduct, all affairs 
of the Department of the Army, subject to the authority, direction, and 
control of the Secretary of Defense. The Secretary of the Army may 
assign such of his functions, powers, and duties as he considers 
appropriate to the Under Secretary of the Army, as well as the 
Assistant Secretaries of the Army, and require officers of the Army to 
report to these officials on any matter. If confirmed, I will support 
the Secretary in the performance of the Secretary's important duties. I 
will strive to establish and maintain a close, professional 
relationship with the Secretary of the Army, based on full and candid 
communication with the Secretary on all matters assigned to me.
    Question. The Assistant Secretary of the Army for Civil Works.
    Answer. The Assistant Secretary of the Army for Civil Works is 
principally responsible for the overall supervision of the Army's civil 
works functions, including programs for conservation and development of 
the national water resources, including flood control, navigation, 
shore protection, and related purposes. Carrying out the Army's civil 
works program is a principal mission of the Corps of Engineers and the 
complex issues that arise in this area demand a close, professional 
relationship between the Assistant Secretary of the Army for Civil 
Works and the Chief of Engineers, based on mutual respect, trust, 
cooperation, and full communication. If confirmed, I am committed to 
establishing and maintaining such a relationship.
    Question. The General Counsel of the Army.
    Answer. The General Counsel of the Army is the chief legal officer 
of the Army. The General Counsel serves as counsel to the Secretary of 
the Army and other Secretariat officials and is responsible for 
determining the position of the Department of the Army on any legal 
question or procedure. If confirmed, I will ensure that my Chief 
Counsel maintains a close and professional relationship with the 
General Counsel and actively seeks the General Counsel's guidance in 
order to ensure that Army Corps of Engineers policies and practices are 
in strict accordance with the law and the highest principles of ethical 
conduct.
    Question. The Chief of Staff of the Army and the Army Staff.
    Answer. The Chief of Staff of the Army performs the Chief of 
Staff's duties under the authority, direction, and control of the 
Secretary of the Army and is directly responsible to the Secretary. The 
Chief of Staff also performs the duties prescribed by law as a member 
of the Joint Chiefs of Staff.
    The Army Staff assists the Secretary of the Army in carrying out 
the Secretary's responsibilities, by furnishing professional advice and 
operations expertise to the Secretary, the Under Secretary, and the 
Assistant Secretaries of the Army, and to the Chief of Staff of the 
Army. Under the authority, direction, and control of the Secretary of 
the Army, the Army staff prepares for and assists in executing any 
power, duty, or function of the Secretary or the Chief of Staff; 
investigates and reports on the Army's efficiency and preparedness to 
support military operations; supervises the execution of approved 
plans; and coordinates the action of Army organizations, as directed by 
the Secretary or Chief of Staff. As a statutory member of the Army 
Staff, the Chief of Engineers assists the Secretary in carrying out the 
Secretary's responsibilities and furnishes necessary professional 
assistance to the Secretary, the Under Secretary, the Assistant 
Secretaries of the Army, and the Chief of Staff of the Army. 
Specifically, the Chief of Engineers is the principal adviser to the 
Army Staff on engineering and construction matters. In discharging 
these responsibilities, the Chief of Engineers must develop positive, 
professional relationships with the Chief of Staff, the Vice Chief of 
Staff, the Deputy and Assistant Chief of Staff, the Surgeon General, 
the Judge Advocate General, the Chief of Chaplains, and the Chief of 
the Army Reserve, in order to ensure that the Army Staff works 
harmoniously and effectively in assisting the Army Secretariat. I am 
committed to establishing and maintaining such relationship with the 
members of the Army Staff.
    Question. The combatant commanders.
    Answer. The combatant commanders are responsible to the President 
and to the Secretary of Defense for the performance of missions 
assigned to the commands by the President or by the Secretary with the 
approval of the President. Subject to the direction of the President, 
the combatant commanders perform their duties under the authority, 
direction, and control of the Secretary of Defense and are directly 
responsible to the Secretary for the preparedness of the commands to 
carry out their assigned missions. These missions include providing 
humanitarian and civil assistance, training the force, conducting joint 
exercises, contingency activities, and other selected operations. If 
confirmed, I will support the combatant commanders in the performance 
of these important duties by providing any necessary engineering and 
construction services required from the Corps of Engineers to the 
combatant commanders' component commands.
    Question. The U.S. Ambassador to Iraq.
    Answer. The Corps of Engineers is providing a broad array of 
engineering and construction-related services in Iraq generally to 
either the Central Command (CENTCOM) Commander or the State Department. 
In the first situation, the CENTCOM Commander has the primary 
relationship with the U.S. Ambassador and my involvement with the 
Ambassador would be in support of the CENTCOM Commander through my Gulf 
Region Division Commander. In the second situation, my representative, 
the Gulf Region Division Commander, would have a direct relationship 
with the Ambassador, but would coordinate with the CENTCOM Commander 
nonetheless.
    Question. The State Governors.
    Answer The execution of the Corps of Engineers civil and military 
missions often demands a balancing of diverse interests. The proper 
reconciliation of these interests requires an understanding of the 
Corps' authorities and legal responsibilities and open communication 
among all parties. I am committed to working cooperatively with the 
Governors of the States for the public interest. If confirmed, I pledge 
to establish and maintain a full dialogue with the Governors of the 
States on all issues we must cooperatively address.
    Question. Please describe the chain of command for the Chief of 
Engineers on: (a) military matters; (b) civil works matters; (c) 
operational matters; and (d) any other matters for which the Chief of 
Engineers may be responsible.
    Answer.
Military Matters
    The Chief of Staff presides over the Army Staff and assists the 
Secretary of the Army in carrying out the Secretary's responsibilities. 
The Vice Chief of Staff has such authority and duties with respect to 
the Army Staff as the Chief of Staff, with the approval of the 
Secretary of the Army, may prescribe for him. As a statutory member of 
the Army Staff, the Chief of Engineers reports to the Chief of Staff, 
through the Vice Chief of Staff, with respect to military matters.
Civil Works Matters
    The supervisory duties of the Assistant Secretary of the Army for 
Civil Works extends to all civil works functions of the Army, including 
those relating to the conservation and development of water resources. 
The Chief of Engineers reports to the Assistant Secretary of the Army 
for Civil Works on civil works functions.
Operational Matters
    The Chief of Engineers serves as a member of the Army Staff and as 
Commander of the USACE. In this latter capacity, the Chief of Engineers 
commands nine engineer divisions and one engineer battalion. When 
employed in support of military contingency operations, these engineer 
assets fall under the command and control of the combatant commander 
designated for the particular operation.
Any other matters for which the Chief of Engineers may be responsible
    The Chief of Engineers reports to each of the Assistant Secretaries 
within their areas of functional responsibility. For example, in the 
areas of installation and real estate management, the Chief of 
Engineers reports to the Assistant Secretary of the Army for 
Installations and the Environment. Similarly, the Chief of Engineers 
reports on procurement matters to the Assistant Secretary of the Army 
for Acquisition, Logistics, and Technology (ASA-ALT).
    Question. Who is responsible for providing direction and 
supervision to the Chief of Engineers in each of the four areas listed 
above?
    Answer. In each of these areas, the Chief of Engineers acts under 
the overall authority, direction, and control of the Secretary of the 
Army. With respect to military matters, the Secretary has assigned to 
the Chief of Staff the authority to preside over and supervise the Army 
Staff, including the Chief of Engineers. With respect to civil works 
functions, the Chief of Engineers reports to the Assistant Secretary of 
the Army for Civil Works. In operational contexts, command and control 
of engineer assets is exercised by the combatant commanders designated 
for the particular operation.
    Question. In your view, are there any areas of responsibility where 
it would be inappropriate for the Chief of Engineers to provide 
information to the Secretary of the Army or the Assistant Secretary of 
the Army for Civil Works? If so, what areas and why?
    Answer. No. Certain information may require protection from 
disclosure, as in the case of certain procurement sensitive 
information, however, even this information may be shared if 
appropriate steps are taken to protect sensitive and proprietary 
aspects of the information. The relationships between the Secretary of 
the Army and the Assistant Secretary of the Army for Civil Works and 
the Chief of Engineers must be founded upon information sharing, and 
full and open communication about all matters. If confirmed, I will 
ensure that all Secretariat officials are informed about issues and 
provided with all information pertinent to their functional areas of 
responsibility.
    Question. What is your view of the relative authority of the Chief 
of Engineers, the Assistant Secretary of the Army for Civil Works, the 
Secretary of the Army, the Army Chief of Staff, and the Secretary of 
Defense with regard to the civil works functions of the Army Corps of 
Engineers?
    Answer. As head of DOD, the Secretary of Defense has full 
authority, direction, and control over all elements within DOD. 
Similarly, as head of the Department of the Army, the Secretary of the 
Army has the authority necessary to conduct all affairs of the 
Department of the Army. Therefore, either Secretary could personally 
intervene in an issue involving the civil functions of the Corps of 
Engineers. However, the principal responsibility for overall 
supervision of the Corps civil works functions has been assigned to the 
Assistant Secretary of the Army for Civil Works by statute and various 
directives. Generally speaking, this supervisory responsibility 
includes the responsibility for setting program policies and for 
coordinating with the Department of the Army, DOD, Office of Management 
and Budget, and other executive branch officials on the Corps budget, 
legislative program, and other matters of program interest involving 
the Corps civil functions. In general, the Chief of Engineers is the 
engineering and construction expert responsible for carrying out the 
civil functions of the Corps and for conducting the various program, 
project, or study activities that comprise the civil works program. 
Typically, the Chief of Engineers does not interact with the Chief of 
Staff of the Army on a regular basis with respect to matters involving 
the Corps civil functions.
    The work of the Chief of Engineers often involves issues of great 
significance to the States and localities and their elected officials 
in Congress.
    Question. If confirmed, what would be your role in addressing such 
matters with Congress?
    Answer. I agree this work often does involve issues of great 
significance to the States and localities and their elected officials 
in Congress. In fulfilling its statutory requirements, the Corps must 
interact positively to define an appropriate Federal role in addressing 
these issues that recognizes fiscal realities, environmental, and other 
societal considerations. The challenges the Corps faces are complex, 
and there are many difficult decisions to be made. It is important that 
all interests be brought to the table and that they be given a voice in 
the development of solutions to our Nation's problems. The Corps must 
be responsive to these interests and must engage in an open, 
constructive, and cooperative dialogue with the States, localities, and 
elected officials to ensure issues are resolved in a manner that 
maximizes the public interest.
    Question. What is your understanding of the role of the civilian 
and military leadership of the Army Corps of Engineers in developing 
goals for Army Corps of Engineers programs and presenting these goals 
to the legislative branch?
    Answer. The civilian and military leadership of the Corps of 
Engineers plays an important role in developing goals for Corps 
programs and in presenting these goals to the legislative branch. These 
goals are guided by the leaders' technical knowledge and understanding 
of Corps capabilities and by information gleaned from a variety of 
sources inside and outside the Corps of Engineers. The leaders' goals 
must promote the public interest, be affordable, and comport with 
existing law. Ultimately, the leadership's goals will set the direction 
and tone for the execution of the Corps missions, if embraced by the 
administration and Congress. Military and civilian leaders within the 
Corps play a pivotal role in shaping these goals, and in ensuring that 
the goals are supported by the executive branch and Congress. These 
leaders may be asked by Congress to give testimony on the goals or to 
answer questions about the goals. They must be prepared to enter into a 
full and constructive dialogue with Congress to ensure that the goals 
are understood by and endorsed by Congress as promoting the public 
interest.

                             QUALIFICATIONS

    Question. Sections 3031, 3032, and 3036 of title 10, U.S.C., 
prescribe some of the duties and responsibilities of the Chief of 
Engineers. Other civil works related responsibilities are described in 
title 33, U.S.C.
    What background and experience do you have that you believe 
qualifies you for this position?
    Answer.
Background:
        <bullet> Undergraduate - Bachelor of Science with concentration 
        in Engineering from West Point (majors not offered at that 
        time);
        <bullet> Graduate - Masters Degree in Mechanical Engineering 
        from University of Michigan and Masters Degree in Business 
        Administration from Long Island University;
        <bullet> Registered Professional Engineer in State of Virginia;
        <bullet> Associate Professor of Mechanical Engineering at West 
        Point.
Experience:
        <bullet> Commanded Combat and Combat Heavy (horizontal 
        construction) units at the Platoon and Company level;
        <bullet> Commanded 326 Engineer Battalion, 101st Airborne 
        Division during Operations Desert Shield/Desert Storm - built 
        Camp Eagle II;
        <bullet> District Engineer, Los Angeles District during 
        Northridge Earthquake and Arizona Floods - military and civil 
        works responsibilities;
        <bullet> Chief of Staff, Corps of Engineers;
        <bullet> Executive to the Vice Chairman, Joint Chiefs of Staff;
        <bullet> Division Engineer, South Atlantic Division;
        <bullet> Special Assistant to Chief of Staff for privatization 
        and best business practices;
        <bullet> Assistant Chief of Staff for Installation Management 
        overseeing construction, operations, and maintenance of all 
        Army Installations;
        <bullet> Commanding General, Maneuver Support Center and 
        Commandant of the Engineer School, Fort Leonard Wood, MO, in 
        charge of engineer training, doctrine, and future systems;
        <bullet> Commanding General, Accessions Command responsible for 
        Army recruiting and initial military training for officers and 
        enlisted soldiers.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges confronting 
the next Chief of Engineers?
    Answer. If confirmed, my first priority would be to meet with the 
Assistant Secretary of the Army for Civil Works, Corps Leaders, Army, 
DOD, and administration leadership, as well as Members of Congress to 
seek their input into the major challenges confronting the next Chief.
    In my view, the next Chief--and probably the next several Chiefs--
must be concerned with the following issues.
    Maintaining the technical competence and professionalism of the 
Corps. Attracting and retaining the most talented employees is key. The 
Corps must train, equip, and challenge its people properly, and 
continue to move forward as a recognized leader in developing and 
implementing the best technology. The integrity of the Corps of 
Engineers rests on the objectivity, transparency, and scientific 
validity of its analytical processes.
    Meeting the Army's infrastructure transformation needs stemming 
from the base realignment and closure (BRAC) decisions, the re-
stationing of troops, and the ongoing increase in the size of the Army. 
This is coupled with a need for meeting future water resources needs as 
the Nation grows and demographics change. I believe the refurbishing of 
our civil infrastructure (in which the Corps of Engineers shares 
responsibility) as highlighted in the American Society of Civil 
Engineers Report Card on the state of the Nation's infrastructure will 
be a major issue.
    The Corps, working with other key players, must help create a joint 
and interagency stability, security, transition, and reconstruction 
doctrine and process. This may include the creation of a civilian 
deployment force to support the kind of contingency operations we have 
undertaken in the Balkans, in Afghanistan, and in Iraq.
    I foresee a need for more comprehensive water resources and 
infrastructure solutions with new and innovative approaches. The Corps, 
as a member of a team, will play a role in determining the strategic 
direction essential to success.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I would need to complete a thorough 
assessment of the needs, challenges, and opportunities. I am familiar 
with the military construction (MILCON) transformation efforts that the 
Corps has already undertaken. These efforts should speed up the design 
and construction of military facilities, and promote lower costs by 
leveraging the capabilities of the private sector. I believe this work 
will need to be monitored very closely over the next several years to 
ensure continued success. I have also reviewed the 12 actions for 
change first announced last June in New Orleans by Lieutenant General 
Strock, in the wake of the Hurricane Katrina disaster. I would also 
track these to ensure they achieve the desired results. It is the 
responsibility of the Chief of Engineers, and the Corps as a whole, to 
provide the most professional advice possible to the administration and 
Congress. I see a need to assure that the Corps has a vigorous and 
continuous strategic planning process, as well as a systematic and 
effective way of engaging the broad array of stakeholders.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Chief of Engineers?
    Answer. Many of the Corps' missions require balancing disparate 
interests. The Corps must further the public interest while executing 
the assigned missions.
    Question. If confirmed, what management actions and timelines would 
you establish to address these problems?
    Answer. As previously discussed, if confirmed, my first priority 
will be to meet with the Assistant Secretary of the Army for Civil 
Works, Corps leaders, Army and DOD leadership, others in the 
administration, as well as with Members of Congress to seek their input 
in preparation for developing a plan to meet the various challenges. I 
believe that the Corps must continue to transform its business 
processes in order to become more efficient and effective in the 
execution of its missions. I would go to the most critical areas with 
the greatest challenges to make a personal and thorough assessment of 
the needs and to meet with stakeholders and officials.
    Question. In your view, does the Army Corps of Engineers need to 
make any changes in the way it operates? If so what changes would you 
recommend?
    Answer. Historically, the Nation's rich and abundant water, and 
related land resources provided the foundation for our successful 
development and rapid achievement of preeminence within the 
international community. Since the beginning of our Nation, the USACE 
has been a great asset, providing engineering support to the military, 
developing our Nation's water resources, and restoring and protecting 
our environment. The Corps has improved our quality of life by making 
America more prosperous, safe, and secure. The Corps must be flexible 
and continue to evolve if it is to continue to make important 
contributions to the Nation and respond to today's and future 
challenges.
    If confirmed, assessing the need for changes would be a top 
priority. Typically there are opportunities for improvements in any 
organization. I am confident that, in consultation with Congress, Corps 
partners, and others within the administration, we could determine 
what, if any, changes are needed.

                  CONTRACTING FOR IRAQ RECONSTRUCTION

    Question. For the past 4 years, the Army Corps of Engineers has 
played a major role in Iraq reconstruction contracting.
    What do you see as the major successes of the Army Corps of 
Engineers in Iraq reconstruction contracting?
    Answer. It is my understanding that the Corps of Engineers has 
successfully completed almost 3,400 Iraq reconstruction projects valued 
at over $4 billion out of a planned total of almost 4,500 projects with 
a total value of $8 billion. These projects have:

        <bullet> increased power generation benefiting 1.3 million 
        homes,
        <bullet> provided 834 new grade schools serving 325,000 
        students,
        <bullet> provided 250 border forts helping to secure more than 
        2,000 miles of Iraq's borders,
        <bullet> provided for new and restored water treatment 
        facilities benefiting 1.9 million Iraqis, and
        <bullet> provided 11 renovated hospitals serving approximately 
        5,500 patients per day.

    Currently, 900 reconstruction projects are under construction and 
scheduled for completion by the end of next year with an additional 200 
projects in the planning phase. These projects employ, on average, 
22,500 Iraqis each week. Currently 75 percent of the Corps' contracts 
are awarded to Iraqi contractors who not only employ thousands of 
Iraqis but also gain the expertise, capability, and experience needed 
to continue the reconstruction of Iraqi infrastructure once the Corps 
of Engineers' mission is complete.
    Question. What is your understanding of the major failures?
    Answer. According to the Special Inspector General for Iraq (SIGIR) 
over 80 percent of the reconstruction projects audited by the SIGIR met 
project requirements. I'll list a few of the more significant factors, 
as I understand them, that contributed to project those difficulties:

        <bullet> Some contractors and their subcontractors failed to 
        complete projects to an acceptable level of quality or in a 
        timely manner due to security issues. Due to the hostile and 
        dangerous environment, contractor supervision and contractor 
        quality control was not always adequate.
        <bullet> Construction management and quality control for some 
        projects had to be managed at a distance due to the inability 
        for the project engineers, and the quality control and quality 
        assurance personnel to physically visit the site.
        <bullet> Due to security issues, prime contractors had 
        difficulty in managing subcontractors. This was a problem where 
        local subcontractors did not have the same quality standards as 
        the prime contractor.

    Question. What changes, if any, do you believe that the Army Corps 
of Engineers should make to improve its processes for reconstruction 
contracting?
    Answer. From my understanding, the procedures used by the Corps of 
Engineers for reconstruction contracting in Iraq are the same as those 
used by other executive agencies. They are grounded in public law and 
the Federal Acquisition Regulation. I believe improvement in the 
processes for reconstruction could be made. For example, the 
procurement processes and practices followed for Iraq reconstruction 
were peacetime practices. The Army and DOD, in consultation with 
Congress, should determine whether alternate processes are necessary 
during contingency operations. If confirmed, I will further consider 
this issue and determine what potential changes I might recommend to 
the Army and DOD to improve the overall process.
    Question. The Army Corps of Engineers has been criticized for the 
process by which major contracts for the reconstruction of the Iraqi 
oil industry (the ``RIO I'' and ``RIO II'' contracts) were awarded.
    The RIO I contract was awarded on a sole-source basis to the 
company that helped the DOD assess the status of Iraq's oil 
infrastructure--an apparent organizational conflict of interest. 
Although the Army Corps of Engineers has maintained that this contract 
was a temporary ``bridge'' contract, intended to last only until a 
fully competitive contract could be awarded, the contract had a term of 
up to 5 years and a value of up to $7 billion. By the time that follow-
on contracts were awarded more than a year later, DOD had already spent 
more than $2 billion on a sole-source basis.
    Do you believe that the Army Corps of Engineers did all that it 
should have done to ensure competition for this major reconstruction 
effort?
    Answer. While I have not been personally involved with this 
mission, it is my understanding that when the Army was assigned the 
responsibility for executing the Contingency Support Plan, the mission 
was still classified. Under the circumstances in which the Army was 
operating, and given the requirements of the mission, the Corps of 
Engineers determined that KBRS was the only contractor who could have 
provided the required services within the required timeframe. A written 
justification prepared by the Corps of Engineers requesting authority 
to award a sole-source contract was reviewed and approved by the ASA-
ALT. It is my understanding that the Corps has always planned to 
convert to a competitive contract as soon as practical, and that the 
successive RIO contract was awarded competitively. Competition is 
always preferable, and the more competition the better. Circumstances 
and mission requirements sometimes dictate procurement methods. The 
Corps must comply with all procurement laws and regulations to include 
satisfying the requirement to provide a justification for limiting 
competition. I understand that there were several independent reviews 
of the award of the sole-source contract and those reviews found the 
award to be proper.
    Question. If confirmed, what, if anything, would you do differently 
if faced by a situation like this in the future?
    Answer. Not applicable, in view of my previous answer.
    Question. The RIO II contract was awarded to two different 
contractors, including the RIO I incumbent. The RIO I incumbent was 
rated as excellent in areas including past performance, experience, 
business management, and contract administration despite the fact that 
the Defense Contract Audit Agency (DCAA) found systemic deficiencies in 
the company's estimating and financial management systems that ``raised 
serious concerns about overpricing'' and advised the Army Corps of 
Engineers to exercise extreme caution in contracting with the company.
    Do you believe that the Army Corps of Engineers did all that it 
should have done to identify and address problems and deficiencies in 
the performance of the RIO I contractor?
    Answer. I am not personally familiar with the details of this 
specific contractor issue. DCAA is an extremely important partner in 
the execution of our mission and, if confirmed, I will continue to work 
with DCAA as we move forward with our reconstruction mission. It must 
be recognized however, that DCAA is only an adviser. In making a 
decision regarding what to do in any given situation, the contracting 
officer must take the information received from DCAA, along with the 
information from all other sources.
    Question. Do you believe that the Army Corps of Engineers 
appropriately took these problems and deficiencies into account in 
making its award decision on the RIO II contract?
    Answer. I am not personally familiar with the details of this award 
decision. However, in accordance with law and regulation, it is 
ultimately the responsibility of the Source Selection Authority to make 
an independent award decision based on the identified selection 
criteria and facts and information available.
    Question. On June 27, 2005, Bunnatine Greenhouse--then the senior 
civilian at the Army Corps of Engineers responsible for contracting--
testified before the Democratic Policy Committee about the problems 
that she saw with the RIO I and RIO II contracts. Ms. Greenhouse 
alleged that these contracts were symptomatic of an ``old boys'' 
approach to contracting, more directed to achieving specific outcomes 
than to compliance with contracting requirements, which she asserted 
was pervasive at the Army Corps of Engineers.
    Do you believe that the Army Corps of Engineers, in its 
contracting, has focused too much on achieving specific outcomes and 
not enough on compliance with contracting requirements?
    Answer. In my experience, the Corps of Engineers is an agency with 
a strong focus on complying with contracting requirements, while still 
accomplishing the difficult and challenging missions it is assigned. If 
I am confirmed, I will work to ensure that the Corps of Engineers 
complies with all applicable contracting requirements.
    Question. The SIGIR has reported on a series of Iraq reconstruction 
projects that appear to have been spectacular failures. For example, 
the SIGIR has reported that: (1) the RIO I contractor spent the full 
$75 million allocated for the construction of a pipeline river 
crossing, but achieved only 28 percent of the planned pipeline 
throughput, resulting in the loss of more than $1.5 billion a year in 
potential oil revenues to the Iraqi government; (2) plumbing was so 
poorly installed at the Baghdad Police College that dripping sewage not 
only threatened the health of students and instructors, but could 
affect the structural integrity of the building; and (3) after the Army 
Corps of Engineers spent $186 million on primary health care centers 
throughout Iraq, the contract was terminated with only 6 health care 
centers completed, 135 partially constructed, and the remainder 
``descoped.''
    What is your assessment of the SIGIR's evaluation of these 
projects?
    Answer. SIGIR provides a valuable service to the coalition force in 
Iraq and the U.S. taxpayers. The feedback and assessment provided in 
consultation with SIGIR has helped identify areas of concern and 
improve processes during the reconstruction effort. SIGIR has stated 
that the problem projects are not indicative of the overall 
reconstruction effort in Iraq. Obviously, the three specific projects 
mentioned fall into the category of problem projects.
    SIGIR identified the Baghdad Police College as not having adequate 
quality assurance oversight. The Corps of Engineers acknowledged that 
quality assurance was inadequate to monitor all phases of construction 
for each building given the size of the project. Communication failures 
between quality control, quality assurance representatives, the prime 
contractor, and the project engineers also contributed to the 
situation. During the deficiency correction period, the Baghdad Police 
College is continuing daily operations and normal training functions.
    It is my understanding that the Corps of Engineers terminated the 
original contract for the primary health care centers. The Corps of 
Engineers has awarded subsequent contracts and is making steady 
progress in the completion of the primary health care centers. It is my 
understanding that the Corps of Engineers has completed 31 primary 
health care centers and has 124 under construction.
    Question. What is your understanding of the major reasons for the 
failures of these and other major reconstruction projects in Iraq?
    Answer. There are a number of reasons some projects were not 
successful. A few of the more significant factors are:

        <bullet> Some contractors and their subcontractors failed to 
        complete projects to an acceptable level of quality or in a 
        timely manner due to security issues. Due to the hostile and 
        dangerous environment, contractor supervision and contractor 
        quality control was not always adequate.
        <bullet> Construction management and quality control for some 
        projects had to be managed at a distance due to the inability 
        for the project engineers, and the quality control and quality 
        assurance personnel to physically visit the site.
        <bullet> Due to security issues, prime contractors had 
        difficulty in managing subcontractors. This was a problem where 
        local subcontractors did not have the same quality standards as 
        the prime contractor.

    Question. What lessons do you believe the Army Corps of Engineers 
has learned from its experience in Iraq reconstruction contracting?
    Answer. I believe the Corps of Engineers could benefit from the 
following changes:

        <bullet> Consideration of new contingency contracting 
        procedures that balance the requirements to immediately provide 
        needed supplies and services in contingency situations with the 
        need to obtain competition.
        <bullet> Reduce over-reliance on large design-build and cost-
        plus contracts in favor of smaller firm-fixed price and 
        indefinite delivery indefinite quantity (IDIQ) contracts.
        <bullet> Implementation of the President's proposed Civilian 
        Reserve Corps.

    Question. What additional lessons, if any, do you believe the Army 
Corps of Engineers should learn from this experience?
    Answer. I think the Corps of Engineers learned from the Iraq 
reconstruction mission that for future similar missions, a common and 
consistent theater construction management and oversight organization 
is necessary to synchronize all construction activities. During the 
Iraq reconstruction mission, multiple and overlapping organizations 
stressed the limited volunteer pool for expertise and brought a layer 
of inefficiency to the process. Quality assurance and quality control 
could be better executed with a lead construction agent clearly defined 
early in the effort. It is difficult and expensive to execute major 
reconstruction efforts in a wartime environment.
    Question. Outside experts reviewing U.S. reconstruction contracts 
in Iraq have suggested that: (1) the Army Corps of Engineers and other 
responsible agencies were not adequately staffed to award and oversee 
these contracts; (2) the effort to hire one set of contractors to 
oversee the work of other contractors was misguided; (3) instead of 
bringing in U.S. contractors to undertake major reconstruction 
projects, the reconstruction effort should have relied upon Iraqi 
companies to undertake much smaller projects; and (4) U.S. 
reconstruction goals were unrealistic, given the security situation in 
the country.
    What is your opinion on these issues?
    Answer. (1) It is my understanding that providing personnel to 
oversee contractors was difficult because of the limited number of 
government civilian volunteers and the ability to provide them with 
adequate security.
    (2) In some cases, due to the limited number of government 
civilians available, an additional layer of contractor oversight was 
needed. Ultimately, however, oversight of U.S. Government 
responsibilities was performed by U.S. Government civilians.
    (3) Immediately after hostilities in 2003, it was necessary to 
bring in U.S. contractors to perform reconstruction work because of the 
unknown capabilities of the Iraqi construction industry. As the Iraqi 
construction companies geared up, the Corps of Engineers was able to 
initiate the Iraqi First Policy. Currently 75 percent of the Corps' 
contracting actions are for Iraqi contractors. One of the Corps' 
primary missions is capacity development within the Iraqi government to 
raise the management, execution, operations and maintenance, and other 
skill sets needed for the Iraqi government to assume the reconstruction 
mission.
    (4) The U.S. reconstruction goals were ambitious, but I would not 
characterize them as unrealistic. It is my understanding that out of a 
total of 10,600 Iraq reconstruction projects, over 8,500 have already 
been completed. The remainder are either under construction or planned. 
Also, the SIGIR in his most recent quarterly report identified that 80 
percent of the projects audited during the last quarter were quality 
construction.

                           NAVIGATION MISSION

    Question. The Army Corps of Engineers has built and maintains an 
intracoastal and inland network of commercial navigation channels, 
locks, and dams for navigation. The Corps also maintains 300 commercial 
harbors and more than 600 smaller harbors.
    What do you view as the greatest challenges facing the Army Corps 
of Engineers with respect to the execution of its navigation mission?
    Answer. I expect one of the greatest challenges with the execution 
of the navigation mission to be the maintenance and modernization of 
aging infrastructure. Maintaining our ports and waterways is critical 
to our economic well-being. An equally significant challenge to the 
navigation mission is the management of hundreds of millions of cubic 
yards of dredged material removed from our Nation's marine 
transportation harbors and waterways. My understanding is that the 
Corps is continually working to make dredging and placement of dredged 
material environmentally safe and acceptable. I believe that the Corps 
should continue these efforts and look for innovative ways to increase 
harmony between the critical need for navigation improvements and our 
precious aquatic environment.
    Question. What do you see as the most significant navigation 
projects planned for the next 10 years by the Army Corps of Engineers?
    Answer. Many ports, gateways to domestic and international trade 
and overseas military operations, are operating at the margin in terms 
of channel depths. Segments of the inland waterway system are congested 
and are in need of rehabilitation. Clearly we must sustain the 
efficiency of our major ports to assure our competitiveness in world 
trade. I believe that the Corps must be poised to meet these needs.
    Question. What role, if any, do you believe the approval or 
disapproval of navigation industry groups should play in decisions made 
by the Army Corps of Engineers about specific projects?
    Answer. Decisions regarding Corps of Engineers projects are the 
responsibility of officials in the executive and legislative branches. 
For its part, the Corps should listen to all interested parties and 
stakeholders and fully integrate economic and environmental values. The 
Water Resources Development Act of 1986 established the Inland 
Waterways User Board and charged this board to report to the President 
and Congress on priorities for investment in the inland system.
    Question. In November 2000, the Army Inspector General found that 
three Army Corps of Engineers officials had manipulated data in a cost-
benefit analysis in order to justify a $1 billion project.
    What is your understanding of the steps that the Army Corps of 
Engineers has taken since 2000 to ensure that projects are 
appropriately analyzed and justified?
    Answer. My understanding is that the Corps has made substantial 
changes to assure that projects are appropriately analyzed and 
justified. The Corps has strengthened its own procedures for internal 
peer review and adopted procedures for external peer review under 
guidance issued by the Office of Management and Budget. The Directorate 
of Civil Works now houses an Office of Water Project Review that is 
separate from project development functions. It is my understanding 
that a significant program of planning improvement is being undertaken 
that includes training, model certification, and centers of planning 
expertise.
    Question. If confirmed, what steps would you take to ensure that 
technical analyses conducted by and for the Army Corps of Engineers are 
independent and sound?
    Answer. If confirmed, I would evaluate the current process and be 
guided by the principle that Corps technical analyses be absolutely 
sound and the project evaluation process be transparent. The Chief of 
Engineers must be trusted with the technical discretion essential to 
meeting our Nation's water resources needs. External reviews can 
contribute to reducing controversy and risk, but these reviews must be 
integrated into the project development process not added at the end of 
the process. Integration of external review will improve projects and 
will assist the Corps in meeting urgent needs in a timely manner.

                     NATIONAL LEVEE SAFETY PROGRAM

    Question. The Army Corps of Engineers has been criticized for its 
failure to do more to protect New Orleans from catastrophic hurricane 
damage. The alleged failures of the Army Corps include: (1) the 
construction of a shipping channel that acted as a ``superhighway'' 
funneling the storm surge from Hurricane Katrina directly into New 
Orleans; (2) the failure to properly account for the soil structure 
under the New Orleans levees; (3) the failure to adequately maintain 
the levees; and (4) the failure to construct levees sufficient to 
protect the city in the event of a direct hit by a strong hurricane.
    What is your view of these criticisms?
    Answer. While I, like the rest of the Nation, am generally familiar 
with the tragedies and widespread damages associated with Hurricane 
Katrina, I am not personally familiar with the specific issues raised 
above. I understand that the Corps of Engineers has initiated and been 
involved with several ongoing analyses and studies of the potential 
causes and effects of the hurricanes and the status of the hurricane 
storm damage reduction projects in the New Orleans area. I understand 
and appreciate the importance of this issue and, if confirmed, will 
immediately learn more about the past, present, and future work and 
issues associated with the ongoing efforts in the New Orleans area. 
Speaking generally, I support, and would welcome thoughtful and 
independent analysis of Corps activities such as those undertaken after 
Hurricanes Katrina and Rita. A full and complete understanding of what 
happened in both the technical and decisionmaking arenas is an 
essential component of assuring it does not happen again.
    Question. Do you see the need for any changes to the structure, 
processes, or priorities of the Army Corps of Engineers as a result of 
the events in New Orleans?
    Answer. I have not developed a position on the structure, 
processes, or priorities of the Corps as a result of the events in New 
Orleans. However, if confirmed, one of my first priorities will be to 
thoroughly examine the issues in New Orleans and to determine if 
potential changes to the Corps of Engineers structure or processes 
would be beneficial. It is essential, in my view, that such an 
examination be made in cooperation with Congress, others within the 
administration, and a broad array of stakeholders.
    Question. What is your understanding of the steps that the Army 
Corps of Engineers is taking in the reconstruction of the New Orleans 
levees to protect the city from a recurrence of the tragic events of 
August 2005?
    Answer. I know that the Corps of Engineers is involved in many 
ongoing reconstruction efforts in the New Orleans area, including 
improvements to the hurricane storm damage reduction projects. I know 
that the Corps is working towards designing and building an integrated 
system that will provide protection from a 100-year storm event. If 
confirmed, I will make it a priority to learn about all ongoing efforts 
in this area.
    Question. The Army Corps of Engineers recently completed a 
nationwide river levee inspection process and identified numerous 
unacceptably maintained levees. Media reports quoted Corps of Engineers 
officials as acknowledging that past inspections were not documented 
adequately and that a lack of resources has made it difficult for 
periodic inspections to be performed. The operation and maintenance of 
levee systems is a shared responsibility of State and local sponsors, 
however, there is enormous dependence on the Corps of Engineers for 
inspection, identification of problems, risk assessment, and where 
required, rehabilitation.
    What is your opinion of what the Corps of Engineers and Federal, 
State, and local authorities need to accomplish in order to ensure that 
existing deficiencies in the national system of levees are addressed?
    Answer. The management of the Nation's levees is a shared 
responsibility among local, State, and Federal Government. I believe 
that the Corps should maintain a leadership role in this management 
responsibility and ensure that all parties are fulfilling their 
responsibilities. This includes thorough, joint inspections by the 
Corps and the levee owners, followed by immediate maintenance action by 
the levee owners. The Corps possesses administrative options to require 
proper operation and maintenance and I believe the Corps should 
exercise those options when necessary in order to ensure that the 
projects will perform as expected. Public safety must be the priority.
    Question. What steps would you take, if confirmed, to ensure that 
those levees representing the highest risk of failure and loss of life 
and property are rehabilitated?
    Answer. Protecting the public from catastrophic flooding is a key 
part of the Corps' mission. The Corps is currently in the process of 
developing an assessment methodology to identify levees which represent 
the highest risk of failure and loss of life and property. I believe 
the Corps should, after identification, work with levee owners and 
other key stakeholders to determine a rehabilitation plan using the 
available processes and programs. The Corps must work closely with the 
Federal Emergency Management Agency, States, local governments, and 
other stakeholders to ensure an understanding of risks and to develop 
comprehensive solutions that best address the need to improve system 
performance and reduce future flood damages.

        HURRICANE KATRINA RELIEF AND RECONSTRUCTION CONTRACTING

    Question. The Army Corps of Engineers played a major role in 
contracting for reconstruction and relief in the wake of the major 
hurricanes of 2005.
    What is your understanding of the major successes of the Army Corps 
of Engineers in relief and reconstruction contracting?
    Answer. The Corps of Engineers has a long tradition of providing 
disaster response assistance. Most recently, the Corps was a major 
player in the Federal response to Hurricanes Katrina and Rita in 2005. 
In addition to deploying over 8,000 Corps employees to provide disaster 
support, it leveraged the expertise, capacity, and capabilities of the 
private sector to provide relief assistance.
    It is my understanding that a major contracting success is that of 
the Corps' program which utilizes ``Pre-Awarded'' contracts. This 
initiative provides the Corps with the ability to rapidly and 
effectively respond in order to execute major relief missions. After 
Hurricane Katrina, the Corps employed this initiative to rapidly 
provide emergency services. These contracts allowed the Corps to 
provide the initial assistance, while follow-on contracts could be 
competitively awarded to provide additional capabilities and capacity.
    Question. What is your understanding of the major failures?
    Answer. I am not aware of any specific major failures; however, if 
confirmed, I will look into the overall response to this, and other 
emergencies, and look for ways to improve the Corps' processes.
    Question. What changes, if any, do you believe that the Army Corps 
of Engineers should make to improve its processes for reconstruction 
and relief contracting?
    Answer. From my experience with the Corps of Engineers, it is an 
organization that is constantly looking for ways to improve. I believe 
it is important that the Corps work closely with the Department of 
Homeland Security, and other Federal and non-Federal partners, to 
improve the collective abilities to deliver required commodities and 
services in a timely, efficient, and cost-effective manner. The work 
that the Corps performed during Hurricane Katrina has been and will 
continue to be extensively audited and, if confirmed, I would look 
forward to continue to work with these agencies to implement corrective 
actions and improvements to the Corps' processes.
    Question. Recent press articles have described a process in which 
work was passed down from the Army Corps of Engineers to a prime 
contractor, then to a subcontractor, then to another subcontractor--
with each company charging the government for profit and overhead--
before finally reaching the company that would actually do the work. In 
one such case, the Army Corps of Engineers reportedly paid a prime 
contractor $1.75 per square foot to nail plastic tarps onto damaged 
roofs in Louisiana. The prime contractor paid another company 75 cents 
per square foot to do the work; that subcontractor paid a third company 
35 cents per square foot to do the work; and that subcontractor paid 
yet another company 10 cents per square foot to do the work. In a 
second such case, the Army Corps of Engineers reportedly paid prime 
contractors $28 to $30 per cubic yard to remove debris. The companies 
that actually performed the work were paid only $6 to $10 per cubic 
yard.
    What is your understanding of the payments made under these 
contracts?
    Answer. While I am not personally familiar with these particular 
contracts, it is my understanding that the Corps of Engineers entered 
into competitive contracts in order to complete its mission. Under such 
contracts, the Corps would have no contractual relationship with 
subcontractors that any prime contractor might engage. From my 
experience, the Corps is an agency that expects all subcontractors to 
be compensated for the work they perform and at the rate that their 
contract requires. If confirmed, I will examine this issue in detail.
    Question. What steps do you plan to take, if confirmed, to ensure 
that the Army Corps of Engineers does not pay excessive ``pass-
through'' charges of this kind on future contracts?
    Answer. I believe that the Corps should take steps to minimize the 
tiering in the future. This could possibly be accomplished by awarding 
more, smaller contracts to achieve the mission.
    Question. The Federal agencies, including the Army Corps of 
Engineers, have been criticized for awarding sole-source contracts on 
the basis of ``urgent and compelling circumstances'' in the wake of 
Hurricane Katrina, even though some of these contracts were awarded 
long after the hurricane took place or extended long beyond what could 
be justified on the basis of that disaster.
    Would you agree that the ``urgent and compelling'' exception to 
competition requirements should be used to award a contract only on the 
basis of an event, or series of events, that is reasonably proximate in 
time to the contract award?
    Answer. Yes, in general I believe that the ``urgent and 
compelling'' exception should be used only in the immediate wake of the 
disaster. I understand that the law requires competition except in very 
limited circumstances and believe that competition is vitally 
important. However, any determination regarding the specific use of an 
``urgent and compelling'' exception to competition should be looked at 
on a case-by-case basis. If I am confirmed, I will ensure that the 
Corps judiciously uses the ``urgent and compelling'' exception in 
compliance with the applicable statutes and regulations.
    Question. Would you agree that the term of a contract awarded on 
the basis of the urgent and compelling exception to competition 
requirements should not ordinarily exceed the period of time the agency 
reasonably believes to be necessary to award a follow-on contract?
    Answer. Yes, I agree that in general, the term of a contract 
awarded under the ``urgent and compelling'' exception to competition 
should not ordinarily exceed the time reasonably required to award a 
follow-on contract. I understand that the law requires competition in 
all but a few limited circumstances and I believe that competition is 
the very foundation of Government contracting. However, the 
determination to use the ``urgent and compelling'' exception and the 
duration of the resulting contract must be reviewed on a case-by-case 
basis, taking into account the specific facts of the situation. If I am 
confirmed, I will ensure that the Corps complies with the applicable 
statue and regulations when using the ``urgent and compelling'' 
exception to competition.

      COMPETITION IN THE CONTRACT MANAGEMENT OF MILITARY PROGRAMS

    Question. The USACE has historically been designated as the primary 
contracting agent for military construction (MILCON) projects carried 
out by the Department of the Air Force. However in recent years, due to 
the perception of excessive overhead costs associated with the Corps of 
Engineers, the Air Force has sought to establish an organic contracting 
agency through the Air Force Center for Environmental Excellence in San 
Antonio, TX. Currently, the Air Force is limited by DOD policy to be 
able to contract a maximum of 5 percent of its MILCON projects 
organically, but in light of their success in achieving construction 
savings, has requested approval for a higher percentage.
    What is your view of the request by the Air Force to be allowed to 
carry out a larger percentage of MILCON contracts?
    Answer. The Corps of Engineers has successfully accomplished the 
Air Force military design and construction mission since the Air Force 
was established. I do not have an opinion on this specific issue at 
this time. If I am confirmed, I will review the matter and will work 
with DOD, the administration, and Congress to develop a position on 
this matter.
    Question. In your opinion, what would the impact be to the Army 
Corps of Engineers by allowing the Air Force to serve as their own 
contracting agent without limitations?
    Answer. Congress passed a law in the early 1950s that designated 
the Army and the Navy as the DOD construction agents and specific 
certain assessments that needed to be completed prior to allowing 
another agent to execute the DOD construction mission. If I am 
confirmed, I will review the matter and will work with DOD, the 
administration, and Congress to develop a position on this matter.
     efficient management practices in the army corps of engineers
    Question. In a report to Congress dated February 1, 2007, and 
titled ``U.S. Army Corps of Engineers Response to Senate Report 109-
254, Management of Military Programs in the United States Corps of 
Engineers, January 2007,'' the Commander of the U.S. Corps of Engineers 
(USACE) stated that ``through MILCON Transformation, USACE will gain 
economic efficiencies through design standardization of Army facility 
types, centralization of design activities in USACE Centers of 
Standardization, and focused business line contracting with regional 
acquisition strategies.'' The report also forecasted that savings from 
these efficiencies would be experienced by customers in later years 
after full implementation of transformation initiatives, possibly 
affecting rates charged by the Corps for supervision, inspection, and 
overhead.
    Do you support the goals of the Corps' current plan for MILCON 
Transformation?
    Answer. Yes. With the dramatic increase of construction that must 
be accomplished in support of Army Transformation and the most recent 
Base Realignment and Closure (BRAC 2005), I believe that the changes in 
the Corps of Engineers' MILCON process are on target to assist the Army 
to provide quality facilities less expensively and faster than the 
legacy processes. The current construction environment dictated the 
need to move from very prescriptive requirements to more performance-
based requirements in order to allow contractors to utilize industry 
best practices and meet the Army's needs within the limited funds 
allotted.
    Question. If confirmed, would you recommend any changes or 
improvements?
    Answer. As MILCON Transformation is implemented, I expect the Corps 
to collect lessons learned on MILCON Transformation projects as they 
are completed and to make course corrections in the MILCON 
Transformation process or wholesale changes if needed. I believe that 
the strength of any successful process is continual assessment and 
improvement.
    Question. When do you expect the Corps' customers would begin to 
see the real benefits of MILCON transformation in terms of decreased 
costs for supervision, inspection, and overhead and improved delivery 
times for construction products?
    Answer. I understand that as a result of the greater use of 
standard designs and ``adapt-build'' acquisition, the Army is expecting 
a reduction in required design funds, over the Future Years Defense 
Program fiscal years 2008-2013. Design fund savings is expected to be 
$255 million which will be used to acquire high priority projects. With 
the utilization of alternative construction methods such as modular or 
pre-engineered structures and use of more industry best practices, 
delivery times are expected to be shorter. Decreased costs in 
supervision, inspection, and overhead should occur once both the Corps 
and the contractors become more accustomed to the use of the new 
processes.

  USE OF INDEFINITE DELIVERY INDEFINITE QUANTITY (IDIQ) CONTRACTS FOR 
                              CONSTRUCTION

    Question. The Army Corps of Engineers plans to use IDIQ contracts 
for a wide range of construction projects to support requirements of 
Army modularity, the 2005 round of base realignments and closures, and 
to implement the Integrated Global Presence and Basing Strategy.
    In your opinion, what are the pros and cons to the use of IDIQ 
contracts for MILCON in the United States?
    Answer. I believe that the use of regional IDIQ contracts for 
MILCON will help the Army execute its program by allowing the Corps of 
Engineers to use standardized adapt-build designs. In my opinion, some 
advantages of utilizing IDIQ contracts may be:

        <bullet> Providing for a significantly shortened procurement 
        timeline for award of individual projects.
        <bullet> Allowing the Corps to award standardized facility 
        projects to contractors that have previous experience in 
        building with similar materials and methods.
        <bullet> Allowing the Corps to meet significantly shortened 
        project execution schedules.
        <bullet> Allowing the Corps to develop a ``Continuous Build'' 
        program on standardized building types and to capture the 
        potential cost and schedule savings that may accrue as a 
        result.

    The potential disadvantages to the use of regional IDIQ contracts 
may occur if the MILCON program changes significantly or the number of 
similar projects is reduced or funding disruptions occur in given 
regions. Any of these changes may affect the ``Continuous Build'' 
program and the benefits associated with it.
    Question. In your view, what would be the impact to the Corps of 
Engineers if the use of IDIQ contracts were curtailed or limited by 
Congress?
    Answer. The most significant impact would likely be the Corps' 
inability to meet the Army's execution schedules for re-stationing and 
BRAC commitments. The curtailment or limiting of these types of 
contracts would lengthen project procurement timelines and cause 
project schedule delays that would ripple through the Army's execution 
plans for re-stationing and BRAC.

            BUNDLING OF CONTRACTS BY THE CORPS OF ENGINEERS

    Question. The Army Corps of Engineers is faced with the significant 
challenge of carrying out construction requirements over the next 5 
years imposed by the combination of force structure changes due to Army 
modularity, the 2005 round of Base Realignments and Closures, the 
implementation of the Integrated Global Presence and Basing Strategy, 
and most recently, the Army's initiative to grow the force. In 
response, the Corps plans to allow construction contractors to propose 
alternate types of construction, including pre-manufactured and modular 
buildings, to bundle projects for multiple buildings into one delivery 
order, and to rely on design-build acquisitions, which requires one 
contractor to provide both design and construction services. The net 
effect of these proposals will be to reduce the pool of qualified 
contractors able to bid on such large and complicated projects.
    Question. In your view, what benefits, if any would be gained by 
these initiatives?
    Answer. I believe that there will be reduced costs based on the 
experience gained from performing similar projects on a repetitive 
basis. It stands to reason that the more projects that a single 
contractor completes, the less costly each project becomes. For 
example, a contractor may need only one management team to oversee the 
construction of several buildings. Combining multiple projects should 
also lead to efficiency savings due to shortened learning curve and 
implementation of lessons learned, as well as material savings as 
contractors buy in bigger quantities.
    Question. What are the risks to increasing the size and range of 
services required by these contracts?
    Answer. It is a possibility that increasing the size of the 
contracts and decreasing the pool of contractors could result in 
reduced competition and an increase of costs. Large contracts may cause 
the contractors to become overburdened. However, I believe that the 
risk may be minimized through a thorough best value source selection 
process. From my experience, the Corps has a very good track record 
when it comes to construction source selection.
    Question. In your opinion, how can the Corps of Engineers ensure a 
healthy bid climate that allows for a full range of small and mid-range 
businesses to compete for construction contracts?
    Answer. I believe that the Corps must ensure that businesses of all 
types may compete for construction contracts. Some ways in which to 
achieve this goal would be to emphasize small and disadvantaged 
business subcontracting goals, and to hold national and regional 
industry days and technical forums. Additionally, requirements should 
be developed so that small and mid-sized businesses are able to compete 
and opportunities provided to disadvantaged contractors.
    Question. In your opinion, what are the benefits and costs 
resulting from the Corps of Engineers' decision to accept a less 
permanent type of construction?
    Answer. While developing the national acquisition strategy, it is 
my understanding that the Corps has partnered with industry and 
identified changes that may allow it to operate more efficiently. The 
MILCON program uses technical performance criteria that rewards 
innovative construction methods throughout the United States. Among 
these innovative construction methods are offsite prefabricated modular 
assemblies, tilt-up construction, panelized assemblies, the use of 
combinations of different material types and others. The expected 
benefits are an improvement in completion schedules and reduced costs.

                         ENVIRONMENTAL CONCERNS

    Question. If confirmed, you will take charge of the largest 
construction program in the country. Virtually every major civil works 
project of the Army Corps of Engineers raises environmental concerns.
    What is your view of the appropriate balance between the missions 
and projects of the Army Corps of Engineers and the National 
Environmental Protection Act (NEPA) and other environmental statutes?
    Answer. I believe that the Corps can and must carry out its 
missions in an environmentally responsible manner. In fact, one of the 
Corps' three main civil works mission areas is Aquatic Ecosystem 
Restoration. The Corps has a long record of coordinating its missions 
and planning its projects in compliance with the provisions of NEPA and 
other environmental statutes, which has led to better and more 
environmentally sensitive projects. If confirmed, I am committed to 
ensuring that they are planned and constructed in such a manner as to 
avoid or minimize environmental impacts.
    Question. The Army Corps of Engineers is responsible for 
environmental restoration projects at DOD Formerly Used Defense Sites 
(FUDS) and at Department of Energy Formerly Utilized Sites Remedial 
Action Program (FUSRAP) sites.
    What do you view as the greatest challenges facing the Army Corps 
of Engineers with respect to the execution of its environmental 
restoration mission?
    Answer. It is my understanding that continuing to execute the vital 
cleanup mission while always protecting the health and safety of 
workers and the public is perhaps the biggest challenge for the FUDS 
Program and FUSRAP. Restoration standards and stakeholder expectations 
are continuing to increase. The Corps must continue to apply good 
science and management practices that will help to increase remediation 
efficiency and to continue to meet the commitments made to 
stakeholders.
    Question. Do you believe that goals established for environmental 
cleanup (including cleanup of unexploded ordnance) under these programs 
are realistic and achievable?
    Answer. The Corps does and should have aggressive goals for these 
programs and meeting those goals will be a challenge. Most all of this 
work is conducted on private property and involves numerous 
stakeholders, many espousing conflicting agendas. If confirmed, I will 
continue to press for ways to perform the mission in the most efficient 
and effective manner possible.
    Question. In the past, the Army Corps of Engineers has not always 
been required to meet State's water quality standards in constructing 
and operating its water resources projects.
    Do you believe that the Army Corps of Engineers should be required 
to meet State water quality standards in constructing and operating 
Army Corps of Engineers projects?
    Answer. Yes. I believe that the Corps should be a leader in the 
environmental arena and, in most circumstances, should meet State water 
quality requirements.
    Question. Section 404 of the Clean Water Act requires landowners or 
developers to obtain USACE permits to carry out activities involving 
disposal of dredged or fill material into navigable waters of the 
United States, including wetlands. For almost two decades, the stated 
goal of the Federal Government has been ``no net loss of wetlands''.
    Do you support the goal of ``no net loss of wetlands''?
    Answer. Yes. Wetlands are important to human health, the 
environment, and our economy.
    Question. Do you believe that we are currently meeting that goal?
    Answer. From what I understand, I do believe that the Corps is 
meeting the goal of ``no net loss.'' This is an area I will explore if 
confirmed.
    Question. What specific steps do you believe that the Army Corps of 
Engineers should take to move us closer to the goal of ``no net loss of 
wetlands''?
    Answer. I believe there are two principal measures that could be 
implemented to assure that the Corps is meeting the goal of no net 
loss. First, I believe the Corps must continue to improve its program 
to verify that required mitigation is being furnished to replace lost 
wetlands. Second, the Corps should develop a database to improve the 
tracking of wetland impacts and mitigation. The combination of 
increased review of mitigation with this new database will increase the 
Corps' capability to confirm that it is meeting the goal of ``no net 
loss of wetlands.''

               RECRUITING AND RETENTION OF ARMY ENGINEERS

    Question. In recent years, competition among employers for the 
services of highly-qualified engineers has greatly increased.
    What is your understanding of the Army's success in recruiting and 
retaining for careers sufficient numbers of highly-qualified officers 
and civilian employees for service in the Army Corps of Engineers?
    Answer. From what I understand, the Corps is generally successful 
in filling positions and usually has multiple highly-qualified 
candidates for each position announced. The only area where the Corps 
has experienced some recurring challenges is in filling requirements 
for Iraq and Afghanistan and the large mission in the New Orleans area. 
Many of the Corps' employees, both civilians and military officers, 
have either professional engineering degrees or project management 
skills experience. As I have previously indicated, recruiting and 
retaining talented employees is key and is an area of great interest to 
me.
    Question. What do you view as the Corps of Engineers greatest 
challenge in meeting its manpower and training and education 
requirements?
    Answer. It is my understanding that the Corps does not have a 
problem meeting manpower requirements. The biggest challenge in 
training and education is funding and being able to divert the 
employees from their vital missions to obtain necessary training and 
development. As the vast majority of Corps employees are project 
funded, paying salaries during training periods has been and continues 
to be a challenge.
    Question. What steps would you take if confirmed to ensure that the 
Army improves its attractiveness to highly-qualified individuals for 
service in both the Active and Reserve components and in the civilian 
workforce?
    Answer. Recently, legislation was enacted providing additional 
benefits for Corps employees willing to deploy in support of national 
security missions. For example, a provision has been enacted in the 
last several National Defense Authorization Acts that raises the pay 
cap for overtime pay to civilians deployed in support of missions that 
fall under the CENTCOM Commander's purview. Similar legislation has 
been proposed for those employees deployed within the United States who 
are supporting the ongoing reconstruction and restoration efforts in 
New Orleans.

                   NATIONAL SECURITY PERSONNEL SYSTEM

    Question. The Army Chief of Engineers has responsibility for a 
Federal civilian workforce of more than 35,000, portions of which are 
in the process of transition to the National Security Personnel System 
(NSPS). NSPS implementation efforts to date have underscored the 
essential requirement for senior leadership understanding and oversight 
in various NSPS features including employee perception of fairness, 
rewards of performance based on merit, transparency in the development 
of pay bands and pay pools, and adequate training for supervisors and 
employees at all levels in the organization.
    What is your understanding of the Corps of Engineers progress to 
date in implementing NSPS, and, if confirmed, how would you ensure that 
the Army Corps of Engineers transition to NSPS is successful?
    Answer. It is my understanding that the Corps is in the process of 
converting to NSPS. If confirmed, I will work to ensure that this 
system will be successfully implemented within the Corps of Engineers.

           HUMAN CAPITAL PLANNING FOR THE CIVILIAN WORKFORCE

    Question. DOD is developing a comprehensive human capital strategic 
plan for its Federal civilian workforce which is intended to identify 
critical skills and competencies needed in the future civilian employee 
workforce, as well as a plan of action for developing and reshaping the 
Federal civilian workforce.
    If confirmed, how would you approach the task of identifying gaps 
in needed skills in the Army Corps of Engineers workforce and ensuring 
that adequate resources, training, and professional development efforts 
are undertaken to achieve the Corps' workforce goals?
    Answer. I understand that the Office of Management and Budget has 
given the Corps of Engineers the highest rating for progress and status 
made in implementing the human capital initiatives under the 
President's Management Agenda. If confirmed, I will strive to ensure 
that the Corps continues to develop the workforce and achieve 
appropriate goals.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Chief of Engineers?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

                Questions Submitted by Senator Jack Reed

      ARMY ENGINEERING RESEARCH DEVELOPMENT AND ENGINEERING CENTER

    1. Senator Reed. Lieutenant General Van Antwerp, how do the 
research and development (R&D) programs of Army Engineering Research 
Development and Engineering Center (ERDC) currently support the mission 
of the Corps of Engineers?
    General Van Antwerp. ERDC's R&D programs support the full spectrum 
of Corps missions from peace to war. The ERDC's scientists and 
engineers support effort cuts across all five of the Corps broad 
mission areas; Water Resources, Environment, Infrastructure, Homeland 
Security, and Warfighting. Their capabilities are complementary, and 
reinforcing and are critical to the mission of the Corps.

    2. Senator Reed. Lieutenant General Van Antwerp, how will you work 
to enhance the leveraging of the engineering and technical skills of 
ERDC to assist in the performance of the Corps' mission?
    General Van Antwerp. If confirmed, I will continue to fully support 
the entire spectrum of research, development, technology infusion, and 
sustainment within the Corps of Engineers. I look forward to meeting 
with the ERDC leadership, lab directors, and scientists to learn more 
about their efforts.

    3. Senator Reed. Lieutenant General Van Antwerp, how will you work 
to ensure that the ERDC continues to maintain and improve its technical 
workforce and facilities in order to best perform its mission?
    General Van Antwerp. The Corps in its ``12 Actions for Change,'' 
highlighted its commitment to a competent, capable workforce as well as 
a commitment to investing in R&D. If confirmed I intend to continue 
that commitment and will make it a priority to visit the ERDC 
facilities and assess the current status of the workforce and their 
facilities.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

              RECONSTRUCTION DURING CONTINGENCY OPERATIONS

    4. Senator Akaka. Lieutenant General Van Antwerp, it was a pleasure 
to meet with you prior to your hearing, and I was pleased to hear that 
one of the first things that you will do is to visit the Pacific 
Region. In my State of Hawaii, the Army Corps of Engineers is very 
important in particular for its work pertaining to shore protection, 
water resources, and dam safety. In your response to the advance policy 
questions, you mention that you ``believe improvement in the processes 
for reconstruction could be made [in the area of reconstruction 
contracting during contingency operations].'' While I understand that 
you wish to discuss this matter with the Army and Department of Defense 
(DOD), if there was one recommendation that you would suggest that 
would improve the process for reconstruction contracting, what would 
you suggest to change?
    General Van Antwerp. Given the unique nature of the reconstruction 
mission, I believe improvements in the processes for reconstruction can 
be made. Specifically, the process for reconstruction contracting could 
be improved by the consideration of new contingency contracting 
procedures that balance the requirements to immediately provide needed 
supplies and services in contingency situations with the need to obtain 
competition. This type of change would most likely require changes to 
the Federal Acquisition Regulations. If properly done, this could allow 
Federal agencies such as the Corps of Engineers greater flexibility in 
contracting in contingency operations.

                          IRAQ RECONSTRUCTION

    5. Senator Akaka. Lieutenant General Van Antwerp, in your response 
to the advance policy questions for this hearing, you listed as major 
Army Corps' successes in Iraq ``increased power generation benefiting 
1.3 million homes.'' Are you aware that during the week of February 22-
28, electricity availability averaged 6.2 hours per day in Baghdad and 
9.7 hours nationwide? Electricity output for the week was 6 percent 
below the same period in 2006. Since the beginning of 2004, we have 
been unable to provide and sustain a significant increase in electrical 
generation and distribution capacity to meet the Iraqi power demands. I 
believe the chances of success in Iraq would be significantly enhanced 
if critical and highly visible infrastructure projects, such as the 
restoration of electrical power to the Iraqi citizens at a level 
meeting or exceeding the demand by the Iraqi population, were to be 
successful. What do you believe we can do to build on the Army Corps' 
successes in Iraq to increase generation and distribution capacity and 
sustain it at a higher level with a goal of meeting the needs of the 
Iraqi population?
    General Van Antwerp. I inquired about the electricity availability 
in February. A significant portion of the generation capacity was taken 
off-line for planned maintenance because demand is relatively low 
during that timeframe. Demand has increased an average of around 10 
percent per year since 2003. Last summer the Iraqi's reached a peak 
generation of 5,700MW, and we expect they will exceed that this summer.
    The U.S. Army Corps of Engineers was allocated about $4.3 billion 
to improve Iraq's electricity infrastructure. The World Bank estimated 
in 2003 that it would take more than $20 billion to bring Iraq's 
electrical system to the point where it could supply power to all of 
Iraq for 24 hours a day and 7 days a week. That number is now estimated 
to be as high as $40 to $50 billion. The Iraq reconstruction program is 
just a stepping stone on the way to improving Iraq's electrical 
infrastructure. It is my understanding that it will take several years 
and significant international and Government of Iraq investment to 
completely upgrade Iraq's electrical infrastructure and give Iraqis 
power 24 hours a day, 7 days a week, nationwide.

    6. Senator Akaka. Lieutenant General Van Antwerp, in your advance 
policy questions responses for this hearing, you stated that many of 
the Iraq reconstruction projects in Iraq had problems with contractor 
supervision and quality due to the hostile environment. You further 
stated that quality control had to be managed at a distance due to the 
inability for project engineers and quality assurance personnel to 
physically visit the site. Lack of appropriate oversight on contracting 
in Iraq has been a major problem, and it seems to me that these types 
of problems you described were predictable given the operational 
environment in Iraq. What do you suggest we could have done, or should 
do in the future, to prevent these types of problems, and to ensure 
that the American people get the full value for their tax dollars?
    General Van Antwerp. In his most recent quarterly report, it is my 
understanding that the Special Inspector General for Iraq (SIGIR) found 
that 87 percent of the Iraq reconstruction projects reviewed by the 
SIGIR during the last quarter met contract standards. While the goal 
would obviously be 100 percent of the projects, I think an 87-percent 
success rate in this difficult environment is encouraging.
    The Iraq Reconstruction program is carried out in a hostile 
environment with an inherent high risk and formidable security 
challenges. Violence and hostile activity against United States and 
Iraqi personnel does impede reconstruction efforts by slowing progress 
on projects, restricting the movement of personnel, and diverting 
resources from reconstruction to security. However, the customary 
practices for the Corps' Quality Assurance that apply in a peacetime 
environment are still relevant to the Iraq reconstruction effort. It is 
my understanding that the U.S. Army Corps of Engineers, Gulf Region 
Division, does everything it can to see that U.S. Government personnel 
make timely visits to construction sites to ensure project quality, 
enforce financial responsibility, and ensure that the end product is 
constructed to meet the contract requirements. When U.S. personnel are 
not able to visit a project site due to security concerns, I understand 
the Corps' Gulf Region Division has Iraqi nationals conduct site visits 
and assist U.S. personnel in providing quality assurance oversight. I 
think including local nationals in the reconstruction team has worked 
well and should be considered in future operations.

    7. Senator Akaka. Lieutenant General Van Antwerp, do you feel the 
Army Corps has been given all of the resources it needs to do the job 
in Iraq?
    General Van Antwerp. Yes. Following combat operations the U.S. Army 
Corps of Engineers provided Forward Engineer Support Teams to begin the 
process of restoring the electrical and oil infrastructure to provide 
essential power and funds for the people of Iraq. As the mission 
unfolded, the Corps became an important asset in the reconstruction of 
Iraq which necessitated the establishment of the Corps' Gulf Region 
Division in January 2004. In addition to its own staff, the Gulf Region 
Division is supported by the Joint Services and has the ability to hire 
critical Federal employees and specialized contractors. Also, the Gulf 
Region Division has supplemented its staff by directly employing over 
500 Iraqi citizens as engineers, architects, and planners. These 
individuals are deeply involved in the reconstruction effort and will 
be instrumental in continuing the reconstruction program once the 
Corps' mission is complete. In addition, the Corps contracts 
construction work directly to Iraqi contractors who in turn employ 
thousands of Iraqis through their construction firms. Finally, the 
Corps has, through reachback support, been able to make available the 
technical expertise from a workforce of over 30,000 employees, 9 
research laboratories, 10 divisions, and 41 districts. The Corps' 
forward units involved in the Iraq reconstruction efforts are able to 
reach back and tap the resources of the entire U.S. Army Corps of 
Engineers which greatly assists them in their ability to accomplish the 
reconstruction mission.

                     CORPS RECRUITING AND RETENTION

    8. Senator Akaka. Lieutenant General Van Antwerp, in your response 
to the advance policy questions, you indicated that ``attracting and 
retaining the most talented employees'' is a key challenge facing the 
next Chief of Engineers. Has the Army Corps had problems with 
recruitment and retention of highly-qualified engineers?
    General Van Antwerp. The Corps has generally been able to recruit, 
train, and retain sufficient engineers and scientists to meet current 
mission requirements. However, the Corps does face challenges in 
meeting requirements in some selected areas, because we are relying on 
voluntary temporary deployments to overseas areas and major post-
disaster reconstruction efforts. I expect that the Corps, along with 
the rest of the public and private sector, will share in the future 
challenge of having sufficient engineers and scientists enter the 
workforce to meet the Nation's long-term needs.
                                 ______
                                 
                Questions Submitted by Senator Jim Webb

                      LEVEE SYSTEM IN NEW ORLEANS

    9. Senator Webb. Lieutenant General Van Antwerp, it is my 
understanding that a Corps of Engineers estimate said that levee 
systems in New Orleans needed to be dramatically invigorated before 
Hurricane Katrina. Can you confirm whether the Corps of Engineers 
warned before Hurricane Katrina that a different approach to the city's 
levee system should have been funded?
    General Van Antwerp. It is my understanding that prior to Hurricane 
Katrina, Congress had authorized work on a reconnaissance-level report 
for category 4 and 5 protection for southeastern Louisiana and that 
these efforts were underway when Hurricane Katrina struck. The report 
was completed and it was recommended to proceed to the feasibility 
phase. The Corps had worked with State and local governments to advance 
the completion of this work and advised that the current hurricane 
protection measures did not provide protection for category 4 or 5 
storms.

    10. Senator Webb. Lieutenant General Van Antwerp, what 
recommendations were advocated by the Corps of Engineers during the 7 
years prior to Hurricane Katrina with respect to the levee system, 
including budgetary, safety, and structural aspects?
    General Van Antwerp. The Corps recognized the urgency to complete 
construction of the ongoing levee projects, as well as the design and 
approval for new levee projects for the greater New Orleans area. The 
Corps' annual budget request included funding for the ongoing hurricane 
protection projects. The West Bank and Vicinity Hurricane Protection 
Project was budgeted annually at a funding level to complete the first 
level of protection as quickly as possible. The ongoing study to 
evaluate higher levels of protection in several parishes in 
southeastern Louisiana was proceeding to the feasibility phase. Several 
areas were identified for evaluation for raising current levee systems, 
construction of barriers that may prevent storm surges from moving 
inland and wetlands construction and restoration.

    11. Senator Webb. Lieutenant General Van Antwerp, what are the 
recommendations now?
    General Van Antwerp. The Corps of Engineers is committed to 
designing and constructing the best hurricane protection system for 
people and the environment within the resources provided and remains 
focused on restoring levees and floodwalls to the authorized heights 
and completing all planned projects in conjunction with the ultimate 
goal of providing 100-year protection for the system, as directed by 
Public Law 109-234. Additionally, several measures to provide higher 
levels of protection are now being reviewed under the Louisiana Coastal 
Protection and Restoration Act evaluation requested by Congress 
following Hurricane Katrina. This evaluation includes nonstructural 
measures and coastal restoration as a way to provide comprehensive 
hurricane protection.

    12. Senator Webb. Lieutenant General Van Antwerp, there are reports 
that the pumps installed as part of a new pump-and-floodgate system to 
control flooding from Lake Pontchartrain may not be working properly. 
What is their status, and what is the status of the Corps' other major 
repair and improvement projects for the levee system in New Orleans?
    General Van Antwerp. It is my understanding that the Corps has 
completed modifications on approximately one-half of the pumps and 
continues to modify the remainder as quickly as possible. Additionally 
I believe that there are plans to install additional pumps at the 17th 
Street Canal and London Avenue Canal in the near future.
    The Corps of Engineers completed its mission to restore levels of 
protection to that which existed before Hurricane Katrina struck. The 
Corps has repaired the 220 miles of damaged levees (approximately 213 
of the 325 miles of the total levee and floodwall system).
    The Corps of Engineers is preparing for the start of the 2007 
hurricane season by focusing on improvements that will significantly 
reduce risks for critical areas. This includes increasing the level of 
protection at the three outfall canals. At the three canals, temporary 
floodgates have been installed to prevent storm surge from entering the 
outfall canals providing more effective storm and flood management.
                                 ______
                                 
               Questions Submitted by Senator John McCain

                     BALANCING DISPARATE INTERESTS

    13. Senator McCain. Lieutenant General Van Antwerp, in the advance 
policy questions provided to you in preparation for this hearing, we 
asked what you considered to be the most serious problems in the 
performance of the functions of the Chief of Engineers. You responded, 
``Many of the Corps' missions require balancing disparate interests.'' 
Can you elaborate on that answer? Specifically whose or what range of 
interests?
    General Van Antwerp. First, the Corps of Engineers has many varied 
responsibilities including military construction (MILCON) in support of 
our Armed Forces, infrastructure improvements in Iraq and Afghanistan, 
support to other Federal agencies such as that provided to the U.S. 
Environmental Protection Agency in its Superfund program, emergency 
response activities, and the large water resources-based civil works 
program, among others. This work is being carried out by a combined 
force of Corps employees and contractors working throughout the United 
States and in over 90 countries around the world. Each of these 
missions is vitally important, each has distinct authorization and 
funding sources and each has its own constituency and stakeholder 
interests. The Corps' organization and focus must be balanced in such a 
way as to successfully accomplish all of these missions concurrently.
    Further, each of the separate missions has disparate interests 
internal to the mission or program. For example, the Corps civil works 
program includes projects having the primary benefit categories of 
navigation, flood damage reduction, and environmental restoration. 
Quite often, economic and environmental uses of water in these 
categories are in direct competition requiring a balanced approach to 
assure that both the Nation's economic strength and environmental 
health are properly considered. To further complicate matters, 
solutions to water resources problems today--especially in urban 
areas--frequently come into conflict with other challenges which are 
not within Corps missions areas such as providing efficient 
transportation systems, urban economic redevelopment, providing 
recreation opportunities, and so forth. It has become increasingly 
apparent that it is inappropriate to optimize a solution for any one of 
these challenges in such a way as to result in a sub-optimal solution 
to the full range of problems confronting an area. Here again, balance 
is required as a minimum, and ``win-win'' solutions should be actively 
sought.

    14. Senator McCain. Lieutenant General Van Antwerp, if confirmed, 
how do you propose to balance those interests? What guiding principles 
will you use in the process?
    General Van Antwerp. The underlying guiding principles that must be 
used in carrying out the Corps missions are those provided by the 
administration and Congress through policy and legislation applicable 
to those missions. If confirmed, I would expect to engage both the 
administration and Congress on a regular basis to assure we are 
proceeding appropriately.
    Beyond that, and internal to the Corps, there are great 
opportunities to use knowledge and experience gained in one Corps 
program to inform and otherwise benefit the others. As you might 
expect, the same Corps people who are working on one program one day 
are often assigned to another program on another day. My observation is 
that the Corps has always found this diversity of experience to be very 
beneficial, both in terms of individual professional development and in 
cross-fertilizing ideas among programs. I would expect to continue in 
that mode if confirmed.
    Externally, the fundamental prerequisite for identifying the 
appropriate balance among disparate interests is continuous pursuit of 
open and candid communications with all interested parties--both 
listening carefully and offering information freely--and effective 
partnerships with a wide range of stakeholder groups, other Federal 
agencies, and State and local governments.

                    TRANSPARENCY IN CORPS ACTIVITIES

    15. Senator McCain. Lieutenant General Van Antwerp, you have stated 
in your responses to our advance policy questions about the Corps' 
challenges that ``the integrity of the Corps of Engineers rests on the 
objectivity, transparency, and scientific validity of its analytical 
processes.'' Are you committed to complete transparency in all 
contracting activities carried out by the Corps of Engineers?
    General Van Antwerp. Absolutely. If confirmed I will see that the 
Corps of Engineers keeps the public advised of new contracting 
opportunities, emphasizing and utilizing the tools provided by the 
Federal Acquisition Regulation (FAR) and the Army Source Selection 
Manual. The Army Source Selection Manual is an excellent resource for 
contracting officers. The Source Selection Evaluation Team prescribes 
best practices for source selections. This will allow the Corps to 
conduct objective evaluation and source selection of contractors. I 
commit to finding ways to improve the Corps transparency in regard to 
our contracting procedures.

    16. Senator McCain. Lieutenant General Van Antwerp, if confirmed, 
what will you do to improve the objectivity and transparency of the 
Corps' processes, particularly as they relate to open competition and 
contract awards?
    General Van Antwerp. I will reach out to industry through 
conferences and workshops, ensure advertisement of all contracting 
opportunities on the Army Single Face to Industry and Federal Business 
Opportunities Web sites and make certain that the Corps' contracting 
officers have the best and most current information on contracting best 
practices for competition.

       USE OF ``COST-PLUS'' CONTRACTS FOR CONSTRUCTION ACTIVITIES

    17. Senator McCain. Lieutenant General Van Antwerp, to what extent 
does the Corps of Engineers rely on the use of ``cost-plus'' contracts 
for construction activities?
    General Van Antwerp. The Corps of Engineers only employs ``cost-
plus'' contracts when required in accordance with statute and 
regulation. The preferred contract type is always a firm fixed-price 
contract. Unfortunately, circumstances do not always allow the use of 
fixed-price contracts.

    18. Senator McCain. Lieutenant General Van Antwerp, does the Corps 
currently have any guidance or policies in place related to the use of 
these contracts?
    General Van Antwerp. The Corps of Engineers' contracting officers 
follow FAR Part 16, ``Types of Contracts'' as supplemented by the 
Defense FAR Supplement and the Army FAR Supplement in determining the 
appropriate contract type.

    19. Senator McCain. Lieutenant General Van Antwerp, in your 
opinion, what are the advantages and disadvantages to the use of 
``cost-plus'' contracts?
    General Van Antwerp. In accordance with FAR Part 16.301-2 cost 
reimbursement contracts should be utilized ``only when uncertainties 
involved in contract performance do not permit costs to be estimated 
with sufficient accuracy to use any type of fixed-price contract.''
    In many situations the Corps faces projects where the uncertainties 
are such that a cost-type contract is the only method available to 
ensure successful completion of the project. If the site conditions, 
the technology required, or the type of structure to be built are 
complicated and the good result of the project is at risk, it is 
necessary to use cost-type contracts as prescribed by FAR Part 16.
    One of the disadvantages of cost-plus contracting is the lack of 
``market forces'' as an incentive to control costs. This requires 
increased contract surveillance and cost reviews in accordance with 
statute and regulation. Use of effectively designed ``cost-plus'' 
incentive structures will allow the Corps to negate issues caused by 
the contractor's lack of cost control. It is not to the contractor's 
benefit to incur excessive costs, because a cost-plus incentive 
contract will not result in increased fees and could led to reduced 
fees.
    Cost-reimbursement contracts do have a number of unique limiting 
characteristics. Specifically, the FAR places three limits on their 
usage. First, the contractor's accounting system must be adequate for 
determining applicable costs. Second, government surveillance during 
performance must provide reasonable assurance that efficient methods 
and effective cost controls are employed by the contractor. Third, a 
determination must be made that a cost-reimbursement contract is likely 
to be less costly than any other type or that obtaining the needed 
supplies or services without the use of a cost-reimbursement contract 
is impracticable. FAR 16.301-3.
    The Corps of Engineers contracting officers will continue to be 
encouraged to use the tools the FAR has provided for limiting cost risk 
when cost-type contracts are utilized.

    20. Senator McCain. Lieutenant General Van Antwerp, if confirmed, 
what will be your policy on the use of these types of contracts?
    General Van Antwerp. If confirmed, I will assure that Corps of 
Engineers contracting officers are charged with carefully considering 
the project, risk of performance, and advantages and disadvantages of 
the contract type when determining whether a cost-type contract is 
appropriate for the project.

   healthy business environment for small- and medium-size companies
    21. Senator McCain. Lieutenant General Van Antwerp, I wanted to 
follow up on a question we posed to you about maintaining a healthy bid 
climate that allows for a full range of small- and mid-size businesses 
to compete for construction projects. It seems that we have programs 
established for small and disadvantaged businesses and that the large 
multi-national companies will most be able to take advantage of the 
Corps bundling strategy for construction contracts. That leaves the 
entire mid-range of businesses without a competitive advantage. You 
mentioned that ``requirements should be developed so that small and 
mid-sized businesses are able to compete.'' If confirmed, how do you 
propose to develop these requirements?
    General Van Antwerp. When possible, I would assure that the Corps 
breaks up requirements into sizes that are manageable by the small 
business community wherever possible. Additionally, I will explore ways 
in which contracts may be broken out such that they might not be true 
small business set-asides, but would be of such sizes that could be 
more easily accessible to mid-range businesses, i.e. those that do not 
qualify as small businesses, but are not equipped to adequately compete 
for very large contracts.

    22. Senator McCain. Lieutenant General Van Antwerp, how can the 
Corps ensure that mid-range companies will have a selection of projects 
in which to bid on?
    General Van Antwerp. Regarding mid-size firms, unfortunately this 
is not a recognized business designation in Federal contracting. A 
business is either small or large. Once a small business construction 
firm exceeds its size limits to be considered as small business 
(revenues ranging between $13 million-$31 million depending on its size 
standard code), it now has to compete against large businesses with 
revenues in the hundreds of millions of dollars or even in the billion 
dollar range. This is not a level field of competition. Therefore, as 
mentioned above, I would explore ways to offer contracting 
opportunities for mid-range businesses.

                        QUALITY OF CONSTRUCTION

    23. Senator McCain. Lieutenant General Van Antwerp, you mentioned 
in answers to advance policy questions submitted by this committee that 
the Corps is using pre-fabricated modular and tilt-up construction in 
an effort to save costs for the tremendous amount to new construction 
required to satisfy requirements related to base realignment and 
closure (BRAC), Army modularity, and the Army's increase in end 
strength. As a professional engineer: what are the eventual costs of 
using such construction methods versus the traditional Army Corps--use 
of permanent type 5 construction methods?
    General Van Antwerp. Traditionally, the Government has required 
type 1 or 2 construction, which is construction comprised primarily of 
steel and concrete. By allowing private contractors to propose a 
broader range of construction types, the Army is allowing industry 
innovations and construction techniques that maximize methods for both 
cost and schedule reduction. Commercial techniques such as pre-
fabricated modular and tilt-up construction methods provide levels of 
quality that are comparable to traditional construction methods. The 
Corps of Engineers believes that by allowing the use of innovative 
methods and materials, initial facility construction costs will be 
reduced and that future facility maintenance costs will be similar to 
costs experienced by the private sector where similar methods have been 
used. However, it is recognized that life cycle maintenance costs 
associated with commercial construction standards that are less robust 
than traditional Corps standards may be higher. Nonetheless, the 
mission timeline requirements necessitated the use of such standards.

    24. Senator McCain. Lieutenant General Van Antwerp, what is the 
design life of these new facilities versus type 5 construction methods?
    General Van Antwerp. All facilities are built for a 50-year design 
life whether they are type 5, which is a residential type standard, or 
whether they are type 1 or 2, which is construction comprised primarily 
of steel and concrete. In addition, the MILCON transformation strategy 
provides additional flexibility to facility commanders by providing a 
means by which the Army can more easily refurbish or re-adapt a 
facility with a 50-year design life after only 25 years, a timeframe 
similar to the life-cycle used in private industry.

    25. Senator McCain. Lieutenant General Van Antwerp, by accepting a 
lower design life for these new buildings in order to keep costs down, 
are we building a legacy of ``World War II wood'' where entire bases of 
failing buildings will have to be torn down and replaced in 30 years?
    General Van Antwerp. The Army's MILCON transformation strategy is 
built on constructing facilities with a 50-year design life that can be 
built under compressed time schedules by using private industry 
methods, materials, and techniques. The MILCON transformation strategy 
uses industry innovations such as pre-fabrication, modular solutions, 
pre-engineered facilities, and the standardization of facility designs, 
to reduce costs while maintaining quality. The cost savings the Army 
expects to realize are from improved methods, materials, and the use of 
innovative techniques, not from accepting a lower design life. The Army 
expects to get a minimum of 50 years out of facilities built with a 50-
year design life.

                      LAND ACQUISITIONS IN ARIZONA

    26. Senator McCain. Lieutenant General Van Antwerp, the Army Corps 
of Engineers is in the process of carrying out an Air Force requirement 
to purchase, or otherwise acquire, private property in aircraft 
accident zones around Luke Air Force Base, AZ. I have recently been 
briefed that the Corps of Engineers may have to rely on land 
condemnation or Federal seizure proceedings with four landowners in 
order to preclude unsafe development in critical airfield zones. While 
I understand and support the need for the Air Force to conduct safe 
flying operations, I am concerned that the rights of private landowners 
are preserved to the maximum extent possible. Can you look into this 
matter and report back to this committee within 30 days on the Corps 
plan to complete the land acquisitions for the Air Force, the process 
the Corps will pursue to ensure fair and equitable treatment of these 
landowners, and all other actions considered or conducted by the Corps, 
including the use of restrictive easements, to preclude as a last 
resort the seizure or condemnation of the properties?
    General Van Antwerp. It is my understanding that the U.S. Army 
Corps of Engineers is acquiring restrictive easements and that 
landowners will not be displaced. Also, none of the landowners are 
being forced to change their current use of the land which is 
predominantly unoccupied cropland. There is one landowner, Arizona 
Motorsports, whose non-agricultural use of the land is being 
grandfathered in.
    I understand that the Corps of Engineers has concluded negotiations 
for the majority of the necessary transactions, but anticipates having 
to utilize condemnation for several of the transactions. The Corps of 
Engineers is coordinating very closely with AETC and Luke Air Force 
Base and intends to continue to work with owners to conclude the 
transactions. If confirmed, I will ensure that the subject landowners 
are treated fairly and that all laws and regulations governing the 
taking of private property are followed.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions

                    DREDGING THE APALACHICOLA RIVER

    27. Senator Sessions. Lieutenant General Van Antwerp, in 2004, 
Florida denied the Corps' application for a section 401 water quality 
certification to dredge the Apalachicola River, which cut off 
congressionally authorized navigation to the upstream States. Since 
then, the Corps has failed to exercise its Federal preemptive 
authority, including that contained in section 404(d) of the Clean 
Water Act, to dredge the river despite being requested to do so. If you 
are confirmed as Chief of Engineers, what will you do to restore 
navigation to Alabama and Georgia?
    General Van Antwerp. I understand that in connection with the 
operation of any system of Corps multiple purpose reservoir projects, 
such as those in the ACF Basin, the Corps must consider many factors 
and interests in the operation of those projects to accomplish their 
congressionally authorized purposes. The Corps must consider factors 
such as navigation channel depths, drought conditions, and availability 
of water to release or hold back in order to accomplish the various 
multiple purposes of the projects, and such factors as the needs of 
endangered species, fisheries, and shellfish; available funding or lack 
thereof for dredging; and other maintenance activities. The Corps will 
always exercise its best efforts to balance all of these factors in the 
public interest and to fulfill all project purposes including 
navigation to the greatest possible extent in order to maximize the 
benefits of the projects.

                           THE CORPS' MISSION

    28. Senator Sessions. Lieutenant General Van Antwerp, the Corps' 
mission continues to expand while its budget contracts, all at the 
expense of the Corps' traditional programs such as navigation and flood 
control. Recognizing the Corps is the only Federal agency with national 
responsibilities for water resources development, how will you manage 
the Corps to avoid taking on more nontraditional projects and 
programs--which should be the responsibility of other Federal agencies 
such as the Department of Interior and the Environmental Protection 
Agency--and ensure the Corps focuses its limited resources on its own 
established mission?
    General Van Antwerp. The Corps' mission responsibilities and 
assignments come through the policy oversight and guidance provided by 
the administration and specific project and activity authorizations in 
laws passed by Congress. In contrast to most other Federal agencies, 
the Corps doesn't have a great deal of discretion in the specific 
activities it undertakes. The Chief of Engineers can--and should--fully 
inform decisionmakers in both the administration and Congress as to the 
impacts on its traditional missions of proposals for the organization 
to take on work outside of its traditional mission areas. Working with 
the Assistant Secretary of the Army for Civil Works, I would expect to 
be proactive in offering such information if confirmed.
    Beyond that, it seems to me that the best avenue for dealing with 
this problem is through comprehensive, collaborative, integrated 
approaches to problem solving. This is often referred to as a watershed 
approach. One element of such an approach is to seek ways to look more 
comprehensively at the full range of problems in a region or watershed 
before concentrating on site specific solutions to narrower problems. 
To accomplish this effectively, interagency partnerships and actionable 
memorandums of agreement among agencies are essential. Too often in the 
past, we have seen Federal agencies focus exclusively on their own 
discrete missions and tools without understanding the authorities and 
capabilities of sister agencies, or attempting to partner with them. If 
effective collaborations among relevant Federal agencies--and State and 
local governments as well--were created and each partner were to bring 
its respective authorities and resources to bear in solving 
intersecting problems in a complementary manner, the need seen by some 
for Corps mission expansion might be obviated.

                           FUNDING ALLOCATION

    29. Senator Sessions. Lieutenant General Van Antwerp, in fiscal 
year 2007, the Senate Appropriations Committee unanimously rejected the 
administration's proposed ``regional allocation'' of operations and 
maintenance (O&M) funding because of its encroachment on the 
Constitutional prerogatives of Congress. Do you concur with this 
proposed budget policy which has again been included in the fiscal year 
2008 budget request for the Corps? If so, please explain what 
influence, if any, would I or other Members of Congress have on the 
eventual funding levels for individual waterways in my State, if 
Congress should approve the administration's proposal?
    General Van Antwerp. The O&M program is seen more and more as a 
very dynamic program, with needs and priorities changing at a moments 
notice. In a performance-based context, the Corps would manage the 
funds in that account and in the basin, only moving funds to the 
highest priority activities within that basin. The criteria used to 
move funds would be those that were used to develop the overall O&M 
program, which reflect a rigorous analysis to make best use of limited 
funding.
    Tentative, draft individual funding levels were placed on the 
Corps' Web site when the 2008 budget request was introduced. From what 
I understand, there are strict guidelines for reprogramming funds at 
this time, so Members of Congress have significant influence over 
funding levels for individual waterways. Traditionally, Congress has 
appropriated funds by project and not by regional allocation and the 
Corps executes the program accordingly.

                         WATER RESOURCES STUDY

    30. Senator Sessions. Lieutenant General Van Antwerp, it has been 
over 30 years since Congress authorized a National Water Resources 
Study Commission. Would you support congressional authorization in 
Water Resources Development Act of a Presidential Commission to: (a) 
assess the Nation's water resources needs; (b) ascertain the 
performance or benefits of current Federal programs and projects; (c) 
evaluate the effectiveness of present policies, principles, and 
performance/measurement standards in making resource allocation 
decisions; and (d) recommend needed changes pertaining to those Federal 
water resources needs, policies, principles, standards, and programs?
    General Van Antwerp. Depending on how it was constructed and 
charged, such a commission could be very useful in raising awareness of 
national needs and approaches to meeting them. The pressure on water 
resources brought about by an increasing population and shifts in 
population distribution argue for a National Water Resources Commission 
and study. However, I don't think that waiting on the formation of a 
commission and results from its inquiry should delay us from doing 
today what we already know must be done. Existing policies, principles, 
standards, and programs are broad and flexible enough so that much can 
be done under them as they now exist. In the case of the Corps, a 
continuing review and updating of agency rules and procedures developed 
to implement current policies, procedures, and laws could go a long way 
to addressing current and projected needs. If confirmed, I am committed 
to such a continuing review.
                                 ______
                                 
               Questions Submitted by Senator John Ensign

                PROPER USE OF FUNDS FOR FACILITY REPAIRS

    31. Senator Ensign. Lieutenant General Van Antwerp, in our review 
over the past 2 weeks into the facility conditions at Walter Reed Army 
Medical Center, I have come to the conclusion that the appalling 
conditions in Building 18 were the result of a failure in leadership to 
respond to and correct identified deficiencies. We heard witnesses 
testify earlier this week that the Army and Defense Health Affairs had 
received adequate resources from Congress, despite the pending BRAC 
decision to close Walter Reed by 2011, to maintain this facility at an 
acceptable level. In fact, over $670,000 was spent on renovations for 
this facility between 2000 and 2005. What struck me is that in order 
for this money to have been spent in Building 18, a military engineer 
needed to have walked through the facility, talked to building 
residents, and identified problems. Then funds must have been approved 
at some level of command within the Army and provided to award a 
contract for the two renovations. So, this wasn't necessarily an issue 
of lack of oversight, it was an issue of misplaced priorities. My 
question to you as a former Assistant Chef of Staff for Installation 
Management, and now the potential Commanding General of the Army Corps 
of Engineers--what happened? Did we waste $670,000 by, to use a little 
known veterinary term, putting ``lipstick on a pig''?
    General Van Antwerp. Funding for construction, sustainment, repair, 
and maintenance of medical facilities--including all buildings at 
Walter Reed Army Medical Center--is funded through the Defense Health 
Program appropriation and managed by the TRICARE Management Activity 
and the U.S. Army Medical Command.
    It is my understanding that prior to the BRAC decision, the former 
Walter Reed Army Institute of Research (Bldg. 40) and the Walter Reed 
Inn (Bldg. 18) were considered as part of the Enhanced Use Lease 
project. A lease was signed for Building 40. The destruction of 
Building 18 and development of a new parking structure was not pursued 
for two reasons; WRAMC students occupied the facility with no place to 
relocate and the BRAC closure announcement. A large portion of the 
$670,000 was used for minor renovations prior to Wounded Warriors 
occupying the Walter Reed Inn (Bldg. 18) in late 2005.

    32. Senator Ensign. Lieutenant General Van Antwerp, is the Army 
using its scarce O&M resources to fix up finishes rather than 
addressing seriously deteriorated facility systems?
    General Van Antwerp. The Army works very hard to get the most out 
of every facility sustainment dollar.
    The Army's Installation Management Command (IMCOM) manages the 
facility sustainment program for the Army and has adequate oversight in 
place. For example, any repair project estimated over $3 million must 
be reviewed and approved by the Army Secretariat and any repair project 
over $7.5 million is reported to Congress before a project can be 
awarded.
    As one of the organizations supported by the Corp of Engineers, it 
is my opinion that the U.S. Army Medical Command is not wasting scare 
resources on finishes rather than addressing deteriorated systems 
within its medical facilities. The U.S. Army Medical Command has a 
rigorous system for prioritizing facilities for sustainment, repair, 
and modernization requirements to ensure that the Army's medical 
facilities comply with the rigorous life-safety standards established 
by the Joint Commission on Accreditation of Healthcare Organizations 
(JCAHO). The Army's healthcare facilities consistently achieve high 
scores on JCAHO surveys which suggests the Medical Command's Facility 
Management Program is making good use of scarce O&M resources.

    33. Senator Ensign. Lieutenant General Van Antwerp, the Army has 
already spent over $30,000 in the past 2 weeks to paint walls and patch 
holes in Building 18. They are also in the process of conducting an 
engineering survey of Building 18, which I am confident will result in 
the need to replace a failed roof, replace a leaking plumbing system, 
and upgrade an antiquated heating, air conditioning, and ventilation 
system--all the root causes of mold infestation which will again emerge 
on newly painted walls. So, who decided to spend money on drapes, 
carpet, and ceiling tiles while ignoring the basic problems of Building 
18?
    General Van Antwerp. The U.S. Army Medical Command receives 
separate funding for the construction, sustainment, restoration, and 
maintenance of medical facilities from the Defense Health Program. The 
decision to take immediate action to repair problems in Building 18 was 
directed by the Army. Funding was provided by the U.S. Army Medical 
Command.
    The Corps of Engineers has developed, at the request of the U.S. 
Army Medical Command, a phased repair plan for Building 18. The Corps 
has already awarded a contract to replace the roof on Building 18, and 
is preparing to award the necessary contracts for interior repairs 
should the U.S. Army Medical Command decide it wants to continue to use 
Building 18 for housing soldiers in the future.

    34. Senator Ensign. Lieutenant General Van Antwerp, Congress 
provides O&M funds to the military Services with the understanding that 
these funds will be applied wisely by military leaders to address the 
most urgent requirements. I realize that public works for the Army 
falls under the Army's Installation Management Agency, but does the 
Commanding General of the Corps of Engineers--responsible for the 
programming and design of major facility repairs--have a responsibility 
to customers to provide expertise and counsel on the use of these 
finds?
    General Van Antwerp. The U.S. Army Corps of Engineers is indeed 
responsible for providing planning, engineering, design, and 
construction expertise and counsel at the request of Army customers or 
other military Services. However, responsibility for the programming 
and approval of major facility repairs rests with the respective 
military Services. Specifically, for the Army, the Office of the 
Assistant Chief of Staff for Installation Management (OACSIM) plans and 
programs sustainment, restoration, and modernization requirements. The 
Corps works very closely with OACSIM on both O&M funded repair projects 
and MILCON funded projects to provide expertise and counsel on how to 
best use the funds allocated. Ultimately, OACSIM approves and 
prioritizes facilities for repair or construction and the Corps 
provides design and construction services to complete the repairs or 
new construction.

    35. Senator Ensign. Lieutenant General Van Antwerp, what policies 
does the Corps have in place, or do you propose, to ensure this 
expertise is provided?
    General Van Antwerp. The U.S. Army Corps of Engineers has in place 
a major program to provide quality, responsive, and cost-effective 
installation support services for Army garrisons (to include the 
capability to provide expertise and counsel on facility repair 
projects). This program focuses on enhancing mission support 
capabilities, supplementing inherent technical capabilities, and 
extending manpower capacity at garrisons when needed. This support to 
garrisons is normally fully reimbursable, meaning the garrisons seek 
the Corps support when it is determined it is appropriate, and pays the 
Corps for providing the services.
    Standard Corps engineering, design, and construction criteria and 
procedures are changed and adapted to IMCOM requirements when Corps of 
Engineer districts conduct garrison support work. Supporting districts 
comply with quality standards, including the Installation Design Guide, 
the Army Installation Design Standards, and maintenance and repair 
operational procedures. Health, life, safety, fire, or other statutory 
or regulatory requirements are not compromised. In the event of 
disagreement on the appropriateness of engineering and construction 
criteria or procedures for installation support work, the issue is 
raised through IMCOM channels and the Corps of Engineer district's 
channels for quick resolution.
    If confirmed, I will continue to seek improvement in Corps of 
Engineers policies, processes, and procedures to optimize our support 
to installations worldwide.

    36. Senator Ensign. Lieutenant General Van Antwerp, what can 
Congress do to ensure the military Services fix the problems as opposed 
to painting them over and wasting funds?
    General Van Antwerp. I believe the Army has a strong program in 
place for making the most of scarce O&M funds in repairing and 
maintaining Army installations. However, in any process, improvements 
can always be made and I appreciate your willingness to help the Army 
in improving our processes. Congress can significantly help the Army 
improve our program by approving the legislative proposal, 
``Streamlining Military Construction to Reduce Facility Acquisition and 
Construction Cycle Time,'' contained in the fiscal year 2008 budget 
request: (Section 2932, which would amend section 2805 of title 10).
    This proposal would raise the following thresholds: O&M from 
$750,000 to $1.5 million; Unspecified Minor Construction from $1.5 
million to $3 million; and Life-Health-Safety from $3 million to $7 
million.
    Increasing these cost limits would allow DOD to: (1) respond more 
effectively to urgent and unforeseen requirements with properly sized 
and scoped facilities; (2) reduce the recapitalization rate faster by 
allowing facility projects under $3 million to be funded from the 
unspecified minor MILCON account instead of the normal MILCON 
programming and budgeting process; and (3) allow the DOD health care 
community the same level of spending authority as the Department of 
Veterans Affairs (VA), allowing DOD to easily partner with the VA on 
health care projects.
    Additionally, providing annual authorization and appropriations 
prior to the start of the fiscal year allows Army installations to 
receive sustainment and construction funds when needed and allows the 
Army to execute its program in a more timely and efficient manner.
                                 ______
                                 
    [Letter requested by the committee follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [The nomination reference of LTG Robert L. Van Antwerp, 
Jr., USA, follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  February 7, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as the Chief of 
Engineers/Commanding General, United States Army Corps of Engineers, 
and appointment to the grade indicated in the United States Army, while 
assigned to a position of importance and responsibility under title 10, 
U.S.C., sections 601 and 3036:

                        To be Lieutenant General

    LTG Robert L. Van Antwerp, Jr., 8468.
                                 ______
                                 
    [The biographical sketch of LTG Robert L. Van Antwerp, Jr., 
USA, which was transmitted to the committee at the time the 
nomination was referred, follows:]
       Biographical Sketch of LTG Robert L. Van Antwerp, Jr., USA
Source of commissioned service: USMA.

Military schools attended:
    Engineer Officer Basic and Advanced Courses.
    United States Army Command and General Staff College.
    United States Army War College.

Educational degrees:
    United States Military Academy -- BS -- No Major.
    University of Michigan -- MS -- Engineering Mechanics.
    Long Island University -- MBA -- Business Administration.

Foreign languages: None recorded.

Promotions:

------------------------------------------------------------------------
                                                           Dates of
                                                          Appointment
------------------------------------------------------------------------
2LT.................................................          7 Jun. 72
1LT.................................................          7 Jun. 74
CPT.................................................          7 Jun. 76
MAJ.................................................          1 Dec. 81
LTC.................................................          1 Feb. 88
COL.................................................          1 Jun. 92
BG..................................................          1 Aug. 96
MG..................................................          1 Jan. 00
LTG.................................................         21 Nov. 04
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Feb. 73.........................  Apr. 74...........  Platoon Leader,
                                                       76th Engineer
                                                       Battalion,
                                                       (Construction),
                                                       Fort Meade, MD.
May 74..........................  Apr. 75...........  Aide-de-Camp to
                                                       the Assistant
                                                       Commandant,
                                                       United States
                                                       Army Engineer
                                                       School, Fort
                                                       Belvoir, VA.
Apr. 75.........................  Dec. 75...........  Student, Engineer
                                                       Officer Advanced
                                                       Course, United
                                                       States Army
                                                       Engineer School,
                                                       Fort Belvoir, VA.
Dec. 75.........................  Jun. 76...........  Executive Officer,
                                                       65th Engineer
                                                       Battalion, 25th
                                                       Infantry
                                                       Division,
                                                       Schofield
                                                       Barracks, HI.
Jun. 76.........................  Apr. 79...........  Assistant Division
                                                       Engineer, 65th
                                                       Engineer
                                                       Battalion, 25th
                                                       Infantry
                                                       Division,
                                                       Schofield
                                                       Barracks, HI.
Apr. 79.........................  May 81............  Student,
                                                       Department of
                                                       Mechanical
                                                       Engineering and
                                                       Applied
                                                       Mechanics, The
                                                       University of
                                                       Michigan, Ann
                                                       Arbor, MI.
May 81..........................  Jun. 82...........  Instructor,
                                                       Department of
                                                       Mechanics, United
                                                       States Military
                                                       Academy, West
                                                       Point, NY.
Jun. 82.........................  Jun. 84...........  Assistant
                                                       Professor and
                                                       Executive
                                                       Officer,
                                                       Department of
                                                       Mechanics, United
                                                       States Army
                                                       Military Academy,
                                                       West Point, NY.
Jun. 84.........................  Jun. 85...........  Student, United
                                                       States Army
                                                       Command and
                                                       General Staff
                                                       College, Fort
                                                       Leavenworth, KS.
Jun. 85.........................  Jun. 87...........  Executive Officer,
                                                       84th Engineer
                                                       Battalion, 45th
                                                       General Support
                                                       Group, Schofield
                                                       Barracks, HI.
Jun. 87.........................  Apr. 88...........  Chief, Military
                                                       Engineering and
                                                       Construction
                                                       Division, United
                                                       States Army
                                                       Western Command,
                                                       Fort Shafter, HI.
Apr. 88.........................  Apr. 89...........  Executive Officer,
                                                       Office of the
                                                       Chief of
                                                       Engineers, United
                                                       States Army,
                                                       Washington, DC.
Apr. 89.........................  Jun. 91...........  Commander, 326th
                                                       Engineer
                                                       Battalion, 101st
                                                       Airborne Division
                                                       (Air Assault),
                                                       Fort Campbell,
                                                       KY, and during
                                                       Operations Desert
                                                       Shield/Storm,
                                                       Saudi Arabia.
Jun. 91.........................  Jun. 92...........  Student, United
                                                       States Army War
                                                       College, Carlisle
                                                       Barracks, PA.
Jun. 92.........................  Jun. 94...........  District
                                                       Commander, United
                                                       States Army Corps
                                                       of Engineers, Los
                                                       Angeles District,
                                                       Los Angeles, CA.
Jul. 94.........................  Jan. 95...........  Chief of Staff,
                                                       United States
                                                       Army Corps of
                                                       Engineers,
                                                       Washington, DC.
Jan. 95.........................  Mar. 96...........  Executive
                                                       Assistant to the
                                                       Vice Chairman of
                                                       the Joint Chiefs
                                                       of Staff, Office
                                                       of the Joint
                                                       Chiefs of Staff,
                                                       Washington, DC.
Mar. 96.........................  Jul. 98...........  Commanding
                                                       General, United
                                                       States Army
                                                       Division, South
                                                       Atlantic,
                                                       Atlanta, GA.
Jul. 98.........................  Jan. 99...........  Director, Office
                                                       of Competitive
                                                       Sourcing, Office
                                                       of the Assistant
                                                       Secretary of the
                                                       Army (Research,
                                                       Development, and
                                                       Acquisition),
                                                       Washington, DC.
Jan. 99.........................  Jul. 02...........  Assistant Chief of
                                                       Staff for
                                                       Installation
                                                       Management,
                                                       United States
                                                       Army, Washington,
                                                       DC.
Jun. 02.........................  Sep. 04...........  Commanding
                                                       General, United
                                                       States Army
                                                       Maneuver Support
                                                       Center and Fort
                                                       Leonard Wood/
                                                       Commandant,
                                                       United States
                                                       Army Engineer
                                                       School, Fort
                                                       Leonard Wood, MO.
------------------------------------------------------------------------

Summary of joint assignments: Joint duty requirement waived due to 
        promotion and projected utilization based primarily on 
        scientific and technical skills.

------------------------------------------------------------------------
               Assignment                       Dates            Rank
------------------------------------------------------------------------
Executive Assistant to the Vice Chairman    Jan. 95-Jun. 96            Colonel
 of the Joint Chiefs of Staff, Office of
 the Joint Chiefs of Staff, Washington,
 DC (Cumulative joint credit awarded)...
------------------------------------------------------------------------

U.S. decorations and badges:
    Distinguished Service Medal
    Defense Superior Service Medal
    Legion of Merit (with Oak Leaf Cluster)
    Bronze Star Medal
    Meritorious Service Medal (with four Oak Leaf Clusters)
    Army Achievement Medal
    Parachutist Badge
    Air Assault Badge
    Ranger Tab
    Joint Chiefs of Staff Identification Badge
    Army Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by LTG Robert L. 
Van Antwerp, Jr., USA, in connection with his nomination 
follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Robert L. Van Antwerp, Jr.

    2. Position to which nominated:
    Chief of Engineers/Commanding General, United States Army Corps of 
Engineers.

    3. Date of nomination:
    February 7, 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 27, 1950; Benton Harbor, MI.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Paula Eberly Van Antwerp.

    7. Names and ages of children:
    CPT Jeffrey Van Antwerp, 31.
    CPT Lucas Van Antwerp, 29.
    Mrs. Julia Tobias, 27.
    Ms. Kathryn Van Antwerp, 24.
    PVT Robert T. Van Antwerp, 20.


    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civil, business, charitable, and 
other organizations.
    Society of American Military Engineers.
    American Society of Civil Engineers.
    Officers Christian Fellowship, Past President.
    Great Dads, Past Chairman.
    Association of the United States Army.

    11. Honors and awards: List scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes, I agree.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes, I agree.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date

    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                         Robert L. Van Antwerp, Jr.
    This 7th day of February, 2007.

    [The nomination of LTG Robert L. Van Antwerp, Jr., USA, was 
reported to the Senate by Chairman Levin on March 15, 2007, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on May 17, 2007.]


     NOMINATIONS OF CLAUDE M. KICKLIGHTER TO BE INSPECTOR GENERAL, 
DEPARTMENT OF DEFENSE; JAMES R. CLAPPER, JR., TO BE UNDER SECRETARY OF 
  DEFENSE FOR INTELLIGENCE; S. WARD CASSCELLS, M.D., TO BE ASSISTANT 
 SECRETARY OF DEFENSE FOR HEALTH AFFAIRS; AND WILLIAM C. OSTENDORFF TO 
     BE PRINCIPAL DEPUTY ADMINISTRATOR, NATIONAL NUCLEAR SECURITY 
                             ADMINISTRATION

                              ----------                              


                        TUESDAY, MARCH 27, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Akaka, E. 
Benjamin Nelson, McCaskill, Warner, Inhofe, Chambliss, Cornyn, 
and Thune.
    Committee staff member present: Leah C. Brewer, nominations 
and hearings clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Gabriella Eisen, professional staff member; Creighton 
Greene, professional staff member; Michael J. Kuiken, 
professional staff member; Gerald J. Leeling, counsel; Peter K. 
Levine, general counsel; Thomas K. McConnell, professional 
staff member; and Arun A. Seraphin, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; Derek J. Maurer, minority counsel; 
David M. Morriss, minority counsel; Lynn F. Rusten, 
professional staff member; Kristine L. Svinicki, professional 
staff member; Diana G. Tabler, professional staff member; and 
Richard F. Walsh, minority counsel.
    Staff assistants present: Kevin A. Cronin and Benjamin L. 
Rubin.
    Committee members' assistants present: Darcie Tokioka, 
assistant to Senator Akaka; Eric Pierce and Benjamin Rinaker, 
assistants to Senator Ben Nelson; M. Bradford Foley, assistant 
to Senator Pryor; Jason D. Raunch, assistant to Senator 
McCaskill; Sandra Luff, assistant to Senator Warner; Jeremy 
Shull, assistant to Senator Inhofe; Mark J. Winter, assistant 
to Senator Collins; and Russell J. Thomasson, assistant to 
Senator Cornyn.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets today to consider the nominations of James R. Clapper, 
Jr., to be Under Secretary of Defense for Intelligence; Claude 
M. Kicklighter, to be Inspector General (IG) of the Department 
of Defense (DOD); S. Ward Casscells, to be Assistant Secretary 
of Defense for Health Affairs; and William C. Ostendorff, to be 
Principal Deputy Administrator of the National Nuclear Security 
Administration (NNSA).
    We welcome our nominees and their families to today's 
hearing. We know the long hours that senior DOD officials put 
in every day. We appreciate the sacrifices that our nominees 
are willing to make to serve their country. We know that they 
are not going to be alone in making these sacrifices, so we, in 
advance, thank the family members of our nominees for the 
support and the assistance that we know that they are going to 
need to provide.
    Each of our nominees will be called upon, if confirmed, to 
make important contributions to our national defense.
    The Under Secretary of Defense for Intelligence carries the 
heavy responsibility of ensuring that military forces and 
policymakers receive objective and accurate intelligence 
information and assessments. The Under Secretary for 
Intelligence is also responsible for oversight of DOD 
intelligence interrogations, detainee debriefings, and tactical 
questioning that is the policy--and is, in addition to all 
that, the policy advisor to the Secretary of Defense on DOD 
intelligence interrogations.
    The DOD IG is responsible for keeping the rest of DOD 
honest through independent review of the activities of the 
Department and the conduct of senior officials. IG audits and 
investigations have addressed a series of controversial and 
important issues in recent years, from the Air Force tanker 
lease to the intelligence activities of the Office of the Under 
Secretary of Defense for Policy prior to the Iraq war. This is 
a position which demands the highest standards of ethics and 
independence.
    The Assistant Secretary of Defense for Health Affairs is 
responsible for the health care of military personnel, 
including Active-Duty, National Guard, Reserve, and retired 
personnel, and their families. The care provided, from the 
battlefield through intermediary facilities in Germany to our 
premier medical facilities in the United States, has been 
extraordinary, saving the lives of troops with grievous wounds 
who would not have survived in prior conflicts. On the other 
hand, recent revelations at Walter Reed make it clear that we 
have a long way to go with regard to the care and treatment of 
these wounded warriors, particularly when they move from 
inpatient to outpatient status, and that care for mental health 
issues and traumatic brain injury must be significantly 
enhanced.
    Finally, the position of Administrator of NNSA is currently 
vacant, so the Principal Deputy Administrator, if confirmed, 
will act as Acting Administrator. The NNSA faces many 
challenges, including maintaining adequate security at NNSA 
sites, ensuring that workers have a safe environment in which 
to work, managing projects to be on time and on budget, and 
ensuring that both the nonproliferation and the weapons 
programs are executed efficiently.
    These are all extremely important positions that we're 
considering this morning, and they merit the attention which 
this committee is going to be giving to them.
    Senator Warner.
    Senator Warner. Mr. Chairman, I suggest that we allow our 
two colleagues from the Senate and our distinguished good 
colleague from the House of Representatives, Representative 
Everett--he is the ranking member on the Strategic Subcommittee 
of the House Armed Services Committee, and you and I have dealt 
with him many times in the course of conferences--go ahead and 
then I'll say a few words, following them.
    Chairman Levin. That's a very fine idea. We thank you for 
that, Senator Warner.
    Now, Senator Akaka, whenever he comes in, if our colleagues 
would excuse this interruption in their introductions, we would 
call on Senator Akaka, who has to chair his Veterans Affairs 
Committee hearing this morning. So, we may be interrupting you, 
or interfering with the flow of events here.
    Senator Hutchison, I think we'll call on you first to 
introduce Dr. Casscells.
    Senator Warner. I'd like to note that Senator Cornyn was 
also here with Senator Hutchison earlier this morning.
    Chairman Levin. And still is.
    Senator Warner. Oh, he still is here. Excuse me, Senator.
    Senator Cornyn. I'm still down here, Senator. Down here 
with the cheap seats. [Laughter.]
    Senator Warner. We have a lot of players out there.
    Chairman Levin. We will call upon Senator Cornyn after 
Senator Hutchison, if that's okay.
    Senator Hutchison.

 STATEMENT OF HON. KAY BAILEY HUTCHISON, U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Senator Hutchison. Absolutely. Thank you, Senator Warner, 
for allowing me to go first. I certainly appreciate it.
    I am always happy to introduce people to this committee, 
but this is a particularly special introduction because it's a 
true friend, someone who I have known, along with his family, 
for years. Today, I introduce Dr. Samuel W. Casscells--``Trip'' 
Casscells--to the committee for his confirmation. I also want 
to acknowledge his wife, who is one of my friends also, and 
their three children--his wife, Roxanne, and their three 
children, Lily, Henry, and Sam. They are an incredible family. 
As Senator Levin said earlier, when someone volunteers for 
public service of the type that these four are going to do, 
their families make a sacrifice, too, and they have certainly 
been wonderful support for Dr. Casscells throughout his life.
    Dr. Casscells has an incredible record of accomplishment. 
He graduated cum laude from Yale, and then magna cum laude from 
Harvard Medical School. He spent 6 years at the National 
Institutes of Health (NIH). He is one of America's leading 
cardiologists. He's a distinguished professor at the University 
of Texas Health Science Center in Houston, and Associate 
Director for Cardiology Research at the world-famous Texas 
Heart Institute. He is the first civilian recipient of the 
Army's Maxwell Thurman Award for his work in using new 
technologies to improve military emergency medicine.
    When you look at his life as a whole, there is one 
overriding theme, and that is service to others. I recall the 
day that he came to my office, nearly 6 years ago, and told me 
that he had a very serious case of prostate cancer. His doctors 
had told him the prognosis might not be good, and told him to 
get his affairs in order. Like everyone else, I said, ``Slow 
down, take care of yourself, and do everything you can to beat 
this.'' He did not take my advice. He sped up. He kept on going 
and fought this cancer ferociously. At the same time, he 
continued his work in trying to protect the ports of Houston 
against terrorism, to use technology to improve emergency 
medical care for soldiers, to protect America from the avian 
flu, and studying the connections between flu and 
cardiovascular disease. While fighting for his life, he didn't 
slow down a minute in his commitment to our country.
    Then, the great news came. At the age of 53, he had 
defeated the cancer. So, he sped up and continued to do more.
    His father served as a doctor in World War II. While 
cleaning out his father's closet, he decided that it was time 
for him to serve as well. So, at the age of 53, with forces 
deployed to Iraq, he began a campaign to convince the Army that 
he should sign up for the Army Reserve and to try to go to 
Iraq, which is exactly what he did. He is now a colonel in the 
Army Reserve, and he went to Iraq for 3 months last year.
    He is now volunteering to take on another very tough job, 
and one that is very timely. But I think that because of his 
commitment and the experience and what he has shown he wants to 
do for our country, he is the perfect person for a very tough 
job to make sure that we are giving the quality medical care, 
in the field and after service, to our military personnel. I 
cannot think of a better person who can do that job.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hutchison, for your very 
eloquent and your very personal introduction. I know it makes a 
great deal of difference to Dr. Casscells and to us.
    Senator Cornyn.

 STATEMENT OF HON. JOHN CORNYN, U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Cornyn. Thank you, Mr. Chairman.
    I'd like to join Senator Hutchison in introducing Dr. 
Casscells to the committee. I won't repeat the fascinating 
story of his life, really, and what brings him here today, 
except to say that, as a physician, and especially as a 
soldier, Dr. Casscells has proven his commitment to not only 
health care, generally, and improving it for all Americans, but 
particularly for improving health care services for the men and 
women serving in the Armed Forces.
    As you noted, Mr. Chairman, the recent revelations of 
outpatient care at Walter Reed have caused all of us to raise 
some very important questions and to look for ways that we can 
improve what is already largely a very good record of health 
care for our military, how we can help them cut red tape and 
improve their transition--particularly seriously wounded 
warriors from the DOD health care system to the Department of 
Veterans' Affairs (VA)--with a minimum of delay and red tape, 
as I say. I think that Dr. Casscells will be uniquely qualified 
to help us as we work through that process.
    I'm pleased to commend him to the committee, and hope, 
along with Senator Hutchison, that his nomination is voted out 
promptly to the floor and by the Senate so he can get to work.
    Thank you very much.
    Chairman Levin. Thank you, Senator Cornyn.
    Representative Everett, we're delighted to have you here to 
introduce our next nominee.

 STATEMENT OF HON. TERRY EVERETT, U.S. REPRESENTATIVE FROM THE 
                        STATE OF ALABAMA

    Mr. Everett. Thank you very much, Mr. Chairman, Senator 
Warner, and members of the Senate Armed Services Committee.
    I certainly appreciate the opportunity to introduce a man 
who's shown great loyalty and served this Nation for many 
years. He's a man of high character and integrity. It is my 
hope that this panel will confirm Bill Ostendorff as the next 
Principal Deputy Administrator of the National Nuclear Security 
Administration.
    Since 2003, Bill has served as the staff director for 
Strategic Forces Subcommittee, which I chaired for 4 years and 
am now the ranking member. In working with Bill over the last 
3\1/2\ years, he's become one of my closest advisors, due to 
his professionalism and comprehensive understanding of some of 
the most challenging issues facing the Departments of Defense 
and Energy.
    After graduating in 1976 from the U.S. Naval Academy with a 
bachelor's of science degree in system engineering, he served 
on six different submarines. Bill displayed tremendous 
leadership when he commanded the attack submarine U.S.S. 
Norfolk. In 1993, he led the U.S.S. Norfolk on the 
Mediterranean deployment with the Roosevelt battle group. 
Bill's ship was recognized by the commander of Submarine Force 
Atlantic as having achieved the greatest improvement in combat 
readiness among the 53 attack submarines in the Atlantic Fleet 
in 1993, and was awarded the Meritorious Unit Commendation by 
the Secretary of the Navy. In 1995, he was recognized by the 
Commander of the U.S. Atlantic Fleet as a finalist for the Vice 
Admiral James Stockdale Award for Inspirational Leadership in 
Command. During his tour of duty he received four awards of the 
Legion of Merit and other numerous campaign and unit awards. In 
1996, due to a large part of his outstanding service at sea, 
Bill brought his expertise to the classroom to train submarine 
commanders as the Director of the Submarine Force Atlantic 
Commanding Officer School. He then served as Director of the 
Division of Mathematics and Science at the United States Naval 
Academy from 1999 to 2002, at which point he retired from the 
Navy as a captain.
    Perhaps the only thing that could rival Bill's service to 
his country is his devotion to his family. His wife, Chris, and 
his three children, Becky, Chuck, and Jeff, have enjoyed his 
constant love and support. I'm pleased that Chris and Becky are 
here with us today.
    It is without prejudice that I sit before you today and 
introduce to you who I hope will be the next Deputy 
Administrator of NNSA, Bill Ostendorff.
    Thank you very much.
    Chairman Levin. Thank you, Congressman Everett, very much.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    On behalf of the ranking member, Senator McCain, I ask 
unanimous consent that his statement appear following your 
statement.
    Chairman Levin. It will, indeed.
    I'll now place the opening statement of Senator McCain into 
the record.
    [The prepared statement of Senator McCain follows:]

               Prepared Statement by Senator John McCain

    Thank you, Senator Levin. I join you in welcoming General 
Clapper, General Kicklighter, Doctor Casscells, and Mr. 
Ostendorff and their families. I congratulate them on their 
nominations, and thank them for their willingness to serve in 
these important positions.
    General Clapper, as Senator Levin indicated, you had a very 
distinguished career in the Air Force, culminating in your 
assignment as Director of the Defense Intelligence Agency from 
1991 to 1995. After retirement, you returned to the 
Intelligence Community, serving as Director of the National 
Geospatial Intelligence Agency from 2001 through 2006. We 
appreciate your willingness to serve in this critically 
important position as the Under Secretary of Defense for 
Intelligence. Obviously, the attacks of September 11 were a 
massive intelligence failure. As the fight continues in Iraq 
and Afghanistan, no one underestimates the role that rapid, 
accurate, and detailed intelligence plays in combat operations. 
In addition, if you are confirmed, you will be asked, in 
concert with Admiral John McConnell, to continue efforts to 
change and reform the Department of Defense components of the 
national intelligence enterprise. In your responses to the 
committee's advance policy questions, you wrote that ``neither 
the Office of the Director of Naval Intelligence nor the Under 
Secretary of Defense for Intelligence are organized optimally 
to promote efficient collaboration and coordination.'' You will 
be asked to expand on that comment. It may be the most critical 
aspect of intelligence reform.
    General Kicklighter, welcome, and thank you for accepting 
the challenge of serving as the Department of Defense (DOD) 
Inspector General (IG). I want to underscore the importance of 
the DOD IG's functions and urge you, if you are confirmed, to 
consider this appointment as a mandate to strengthen the 
independence and effectiveness of that office. The Office of 
the DOD IG has contributed positively in the past to 
acquisition reform, and, if confirmed you need to continue that 
positive record of curtailing abuses in acquisition and in 
providing timely, well-documented investigations in situations 
in which the Services cannot be looked to for an independent, 
objective inquiry. You have a wealth of experience from your 
service as a senior commander in the Army, as an Assistant 
Secretary of Veterans Affairs, and as a Special Assistant to 
the Secretaries of Defense and State in planning the 
establishment of the new U.S. Mission in Baghdad and are well-
qualified for this important position.
    Doctor Casscells, thank you for your willingness to serve 
as Assistant Secretary of Defense for Health Affairs. I won't 
attempt to list your extraordinary accomplishments today, but I 
do want to acknowledge your decision to seek and accept a 
commission in the Army Reserve in 2005 and your active-duty 
deployments following Hurricane Katrina to assist in relief 
efforts and again from August through December 2006 in Iraq 
serving as liaison to Ambassador Khalilizad.
    As Assistant Secretary of Defense for Health Affairs, you 
will be confronted with some very difficult challenges 
including how to maintain high quality health care, at home and 
on the battlefield, while being challenged to achieve greater 
efficiencies. Solutions to the problems we have seen at Walter 
Reed in outpatient care must be identified and implemented.
    Mr. Ostendorff, congratulations on your nomination to 
become the Principal Deputy Administrator of the National 
Nuclear Security Administration (NNSA). The NNSA was 
established in the aftermath of continued security lapses at 
the Department of Energy's (DOE) nuclear weapons laboratories, 
and what appeared to be an indifferent attitude on the part of 
DOE towards the safety of its own workers and the reliable 
operation of its own facilities. It is now 7 years later, and 
the serious security lapses that occurred at Los Alamos just 
last fall suggest that NNSA has not yet succeeded in creating 
the culture and discipline around these national security 
missions that the act had intended to foster.
    If confirmed by the Senate, you will confront a variety of 
management and operational challenges. You have an impressive 
background of accomplishments in the Navy, however, and I know 
you will bring great energy and commitment to the task. I look 
forward to hearing your views of what is working, what is not, 
and how you would tackle these challenges head on if confirmed.
    I thank each of our nominees for their service and look 
forward to their testimony today.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. In order to achieve brevity here in this 
proceeding this morning, I'll just briefly comment.
    First, General Kicklighter, I thank you for stepping up, 
once again. What an extraordinary career and a wealth of wisdom 
and experience that you bring to this job of IG. You have to 
fight hard, and there will be times when you will be in an 
adversarial position with some of your former colleagues and 
respected peer groups in the military, but that's the job that 
you understood and that you'll take on.
    General Kicklighter. Yes, sir.
    Senator Warner. We have a magnificent, I think, Secretary 
of Defense now, in Bob Gates, and he will look to you, as will 
the Deputy and others in that Department for fair, objective, 
and independent analysis of some of the very difficult 
decisions that the Department from time to time must make.
    I'll say a few words for you, Dr. Casscells, that my father 
also served as a military doctor in World War I, and I know the 
pride that you take in your father's service, as I took very 
humbly in my father's service. I'm not sure that, in all the 
years I've been here, I've known of a 53-year-old individual 
volunteer to enter the military service, but that may be one of 
the first around here. But well done to you.
    How was boot camp, by the way? [Laughter.]
    With that marvelous family of yours that has given you 
support, you'll do just fine in this new position.
    I also would say that we've spent some time here on this 
committee with the problems, as Senator Cornyn said, associated 
with Walter Reed. You'll be thrust into the center of that 
situation. Just for what it's worth, I strongly believe that we 
should focus our attention on accelerating the funding of the 
new parts to go into Bethesda, and, likewise, the new hospital 
that has been planned for many years to go at Fort Belvoir. 
Those two bricks-and-mortar programs could move together very 
quickly, and then eventually the fate of this historic 
institution, Walter Reed, can be decided.
    At this time, I would hope we do not try to amend the Base 
Realignment and Closure (BRAC) law because that would break a 
precedent. Senator Levin and I have been on this committee for 
29 years. We have handled all five of the BRAC pieces of 
legislation. To my knowledge, we've never amended the law. I 
think it's in our interest to maintain the integrity of that 
process, but, at the same time, recognize that, when the time 
comes for the transition, assuming it does take place, to the 
newer institutions at Bethesda and Belvoir, decisions can be 
made with regard to that property. It may well be that the 
Veterans Administration might wish to pick it up for one of 
their institutions.
    To you, Skipper, well done. I think Admiral Rickover would 
be very pleased to know that you're here today, carrying on the 
institution and the training that he brought forth in your 
specialized career in the United States Navy. Well done, and 
thank you, to you and your family, stepping up for public 
service.
    I see our colleague here. Why doesn't he proceed, and then 
I'll say a few words.
    Chairman Levin. That would be great, thank you.
    Senator Akaka.
    Senator Akaka. Thank you, Senator Warner. Thank you very 
much, Mr. Chairman.
    Due to my chairing another hearing scheduled at this same 
time, I appreciate you and other members of this committee, Mr. 
Chairman, agreeing to accommodate my request to introduce 
Lieutenant General Mick Kicklighter.
    Mr. Chairman, it's a great honor for me today to present to 
you and the distinguished members of this committee the 
President's nominee to be the next Inspector General of the 
Department of Defense, General Mick Kicklighter.
    General Kicklighter is one of our Nation's most precious 
kind of resources, a public servant who has dedicated his life 
in service to our country. He has personally provided our 
Nation with over 50 years of combined military and public 
service. Following his retirement from the Army in 1991, after 
a distinguished 35-year military career, he continued to answer 
the call of duty to service to our country in various civilian 
positions wherever his leadership was needed.
    I met General Kicklighter through my brother, Reverend Dr. 
Abraham Akaka, pastor of Kawaiahao Church, known as the 
Westminster Abbey of Hawaii. We became close and personal 
friends with General Mick Kicklighter and his wife, Elizabeth, 
who's here today, and also the family, since he commanded the 
25th Infantry Division at Schofield Barracks in Hawaii from 
1984 to 1986. From that time, I have always known him to be an 
honorable and selfless public servant who has always sought 
opportunities to serve our great country.
    General Kicklighter's accomplishments are many. I will not 
go through all of them here, but I would like to note some of 
the highlights.
    As a public servant, he has served in a number of positions 
in the Departments of State, Defense, and Veterans Affairs. 
Most recently, he led, at the request of Secretaries of State 
and Defense, the establishment of the Iraq/Afghanistan Joint 
Transition Planning Group, a joint Department of State and DOD 
team that provides analysis and recommendations for 
coordinating efforts to address transition challenges in Iraq 
and Afghanistan.
    In prior assignments, he served as the Chief of Staff for 
the VA; Special Advisor to the Deputy Secretary of State for 
Stabilization and Security Operations in Iraq and Afghanistan; 
Director of DOD's Iraq Transition Team; and Assistant Secretary 
for Policy, Planning, and Preparedness in the VA. He also 
served 5 years on the board of directors for Habitat for 
Humanity International, 3 of which were as chairman.
    But, Mr. Chairman, Mick Kicklighter's public service is not 
even half of the story. As a member of our armed services for 
35 years, General Kicklighter served as a leader in all levels 
of military, from platoon to theater command, completing his 
career as Commander of the U.S. Army Pacific. He also held 
senior-level staff assignments with the Joint Chiefs of Staff, 
the Office of the Secretary of Defense, and the Department of 
the Army. A combat veteran, General Kicklighter served two 
tours in Vietnam.
    His list of awards is as long as his service to our 
country. He has been awarded the Distinguished Service Medal 
three times, the Defense Superior Service Medal, the Legion of 
Merit four times, the Bronze Star, the Meritorious Service 
Medal twice, as well as a number of foreign decorations.
    As a civilian, he has been awarded the Presidential Citizen 
Medal, the Eisenhower Liberation Medal, the Decoration for 
Exceptional Civilian Service, and has twice been awarded the 
Department of Defense Medal for Distinguished Public Service.
    Mr. Chairman, I believe, if confirmed by the Senate, that 
Mick Kicklighter will continue to give our country the high-
quality service and dedication that have been characteristic of 
his service throughout his entire career, during which he was 
supported by his wife, Elizabeth.
    I would like to thank you, Elizabeth, and your family, for 
all you have given and sacrificed for our country.
    At this time, I would like to welcome General Kicklighter 
to this committee.
    Mr. Chairman, I thank you for the opportunity to introduce 
my close and personal friend, General Mick Kicklighter.
    Thank you.
    Chairman Levin. Senator Akaka, thank you so much.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    I have the privilege of introducing General Clapper. I 
believe I had that privilege once before, and I'll mention that 
in his long, distinguished career of over 4 decades involved in 
the Intelligence Community, it's remarkable all the experience 
that you've had in this area.
    I also note that he served as a senior intelligence officer 
for the U.S. Forces in Korea, the U.S. Pacific Command, and 
then Strategic Air Command. He was the Air Force Chief of Staff 
for Intelligence at Headquarters, U.S. Air Force Operation 
Desert Shield/Desert Storm. In 1991, General Clapper was 
nominated to serve as Director of the Defense Intelligence 
Agency, when I first had the occasion to meet him and work 
through a confirmation process at that time.
    He served honorably in that position for 4 years, during 
the ever-shifting period following the end of the Cold War and 
the collapse of the Soviet Union and the Warsaw Pact. Together 
with other members of this committee, I worked closely with the 
General and others to ensure our intelligence forces would not 
be cut too steeply. Clearly, we saw our intelligence forces as 
the first line of defense and a force multiplier. We saw the 
necessity of maintaining a robust and capable intelligence 
effort.
    More recently, the General served as head of the National 
Geospatial-Intelligence Agency (NGA) retiring from that 
position in 2006. At NGA, he led the continuing transformation 
from the National Imagery and Mapping Agency from its legacy 
missions to become the leading agency for the creation and 
exploitation of geospatial intelligence.
    Under General Clapper's leadership, the NGA routinely 
provided global intelligence and information security services 
to the White House, Cabinet officials, and Congress, in 
addition to a broad array of military, civil, and intelligence 
customers.
    General Clapper was also one of the first senior officials 
in the U.S. Government to identify geospatial intelligence as 
major strategic issues in our increasingly imagery-dependent 
intelligence operations.
    I'll put into the record his long achievements in the 
private sector and the many awards and distinctions that this 
famous man has received.
    I congratulate you, General, and thank you for once again 
stepping up to public service with the support of your family.
    At this time, perhaps you'd take a moment to introduce your 
family.
    General Clapper. Yes, sir.
    I'm pleased and proud to do so. First, my wife, Sue, of 42 
years, herself a former National Security Agency employee; our 
daughter, Jen, who's an elementary school principal in Fairfax; 
her husband, Jay, who's a high-school teacher; our oldest 
grandson, Ryan; and our granddaughter, Erin. I also have a son 
and daughter-in-law, who are also schoolteachers, with two 
boys, who live outside of Roanoke, VA.
    Chairman Levin. Thank you.
    General Clapper. Obviously, I'm very proud of them, and 
couldn't contemplate this without their support.
    Senator Warner. Thank you.
    One question, General, before I proceed. I understand you 
started your distinguished career in the United States Marine 
Corps.
    General Clapper. Yes, sir.
    Senator Warner. It concerns me how that departure occurred 
and the Air Force got you. Would you please clarify that for 
the record?
    General Clapper. Sir, I'm very proud of that, and proud to 
note that both Senators from my home State of Virginia, 
Senators Warner and Webb, and I all served in the Marine Corps. 
I'm a proud graduate of the Platoon Leader Course, Quantico--
spent a wonderful summer at Quantico Marine Corps Station, way 
back in 1961. My family still reminds me I never got over it. I 
elected to move to the Air Force, since I grew up in the 
intelligence business, as sort of the family business, and I 
had more opportunities to pursue that line of work in the Air 
Force.
    Chairman Levin. Thank you.
    Senator Warner. You're not suggesting the Marines in any 
way fail to have a high intelligence quotient.
    General Clapper. Absolutely not, sir. [Laughter.]
    Senator Warner. Thank you very much. I want that clear for 
the record.
    General Clapper. I'm pleased and proud, sir, to be a 
straight man for you anytime. [Laughter.]
    Senator Warner. That's right. Perhaps the others could 
introduce their families?
    Chairman Levin. They will. As we call on them for their 
testimony, they could do that, at that time.
    First let me proceed, though, with the standard questions 
which we ask all of our witnesses, and we'll ask all of you at 
one time.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    General Kicklighter. I have.
    General Clapper. Yes, sir.
    Dr. Casscells. Yes, sir.
    Mr. Ostendorff. Yes, sir.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Kicklighter. No, sir.
    General Clapper. No, sir.
    Dr. Casscells. No, sir.
    Mr. Ostendorff. No, sir.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    General Kicklighter. Yes, sir.
    General Clapper. Yes, sir.
    Dr. Casscells. Yes, sir.
    Mr. Ostendorff. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Kicklighter. Yes, sir.
    General Clapper. Yes, sir.
    Dr. Casscells. Yes, sir.
    Mr. Ostendorff. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    General Kicklighter. Yes, sir.
    General Clapper. Yes, sir.
    Dr. Casscells. Yes, sir.
    Mr. Ostendorff. Yes, sir.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify, upon request, before this committee?
    General Kicklighter. Yes, sir.
    General Clapper. Yes, sir.
    Dr. Casscells. Yes, sir.
    Mr. Ostendorff. Yes, sir.
    Chairman Levin. Do you agree to give your personal views, 
when asked before this committee to do so, even if those views 
differ from the administration in power?
    General Kicklighter. Yes, sir.
    General Clapper. Yes, sir.
    Dr. Casscells. Yes, sir.
    Mr. Ostendorff. Yes, sir.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner, when requested by a duly constituted committee, 
or to consult with the committee regarding the basis for any 
good-faith delay or denial in providing such documents?
    General Kicklighter. Yes, sir.
    General Clapper. Yes, sir.
    Dr. Casscells. Yes, sir.
    Mr. Ostendorff. Yes, sir.
    Chairman Levin. Thank you.
    Let us, again, invite you to introduce your families as we 
call upon you. I think we'll just go in order, from left to 
right here.
    General Kicklighter, let's start with you.

  STATEMENT OF LTG CLAUDE M. KICKLIGHTER, USA, (RET.), TO BE 
            INSPECTOR GENERAL, DEPARTMENT OF DEFENSE

    General Kicklighter. Mr. Chairman, thank you very much. To 
the distinguished members of this committee, thank you for the 
opportunity to appear here today.
    I'd also like to thank Senator Akaka, who took time away 
from chairing the Veterans Affairs Committee to come and 
introduce me.
    My thanks also to President Bush for nominating me for this 
very important position. Also a special thanks to Secretary 
Gates for his support.
    I'd like to introduce my college sweetheart, who's been my 
wife for the past 52 years, Betty. She is truly the wind 
beneath my wings, the toughest critic I have, and also the 
strongest supporter, the love of my life. I thank Betty also 
for three wonderful children, one of which is here, two could 
not be here, but, even more, five even more wonderful 
grandchildren.
    I'd like to also introduce my son, Rick, and his wife, 
Yvonne, and I know that the other two children and their 
spouses are here in spirit, as well.
    My military career actually began when I was a college 
student and I enlisted in the Army Reserves while also enrolled 
in the Reserve Officer Training Program on campus. I spent 
almost 2 years as an Army reservist, and was honorably 
discharged as a Sergeant E-5 when I graduated from college and 
was commissioned a 2nd Lieutenant.
    I spent almost 36 years on active duty, and, as I was 
retiring, I was asked to plan and oversee the commemoration of 
the 50th anniversary of World War II, and assist our Nation in 
thanking and honoring the men and women, the Greatest 
Generation, who saved not only this Nation, but literally saved 
the world. This led to other jobs in the Departments of State, 
Defense, and Veterans Affairs, for accumulation of about 15 
additional years.
    This past December, when I was asked to consider being 
nominated for this position, which I knew as a very tough 
position, I was in Afghanistan, leading an assessment team for 
the Chairman of the Joint Chiefs of Staff. Having been on the 
ground a number of times in Iraq and Afghanistan with these 
magnificent men and women fighting this global war against 
terrorism, it is impossible for me not to want to do all I can 
to support this, another great generation of Americans.
    If confirmed, I will bring leadership, management skills, 
and a broad-gauge approach to the Office of the Inspector 
General. There's no doubt there's much that I have to learn and 
relearn. But, if confirmed, I look forward to joining the IG 
family and together will continue to build the IG team that our 
troops, their families, the DOD, this Congress, and the 
American people have a right to expect. We will remain 
independent and objective, and we will keep the Secretary of 
Defense and Congress fully and currently informed.
    Thank you, again, Mr. Chairman and the members of this 
committee, for giving me the opportunity to appear, and also to 
respond to your questions.
    Chairman Levin. Thank you, General.
    General Clapper.

 STATEMENT OF LT. GEN. JAMES R. CLAPPER, JR., USAF, (RET.), TO 
         BE UNDER SECRETARY OF DEFENSE FOR INTELLIGENCE

    General Clapper. Chairman Levin, Senator Warner, and 
distinguished members of the Senate Armed Services Committee, 
it is, indeed, an honor for me to appear before you today as 
the nominee to serve as the Under Secretary of Defense for 
Intelligence.
    Being nominated for this position is, for me, an unexpected 
turn of events. When I left government, at the end of last 
September, after serving for almost 5 years as Director of NGA, 
I was convinced that was absolutely the end of my government 
service. But when Secretary Robert Gates, for whom I have the 
highest respect, asked if I would be willing to serve again, in 
this position, I could not say no.
    If I can leave one message with you today, it is this. My 
compelling motivation now is what it has been in every position 
in which I have served for over 43 years, not to do just what's 
best for a Service, agency, department, or Intelligence 
Community, it's do what's best for the Nation.
    I regard the position of the Under Secretary of 
Intelligence in DOD as a sacred trust, particularly now, with 
so many of our magnificent men and women in uniform in harm's 
way in Iraq and Afghanistan. I served two combat tours during 
the Southeast Asian conflict, so I do know what it's like to 
get shot at, and I understand how intelligence can literally be 
a matter of life and death.
    In the quarter century or so that I have dealt with 
Congress in various capacities, I've come to believe strongly 
in the need for congressional oversight particularly over 
intelligence activities, which, for obvious reasons, cannot be 
fully transparent to the public at large. That places, I think, 
an even greater burden on intelligence leaders to ensure that 
Congress is appropriately informed.
    If confirmed, it would be my intention not to merely come 
to Capitol Hill when summoned, but, rather, to keep you 
informed and seek out and listen to your advice and counsel.
    It's the highest distinction of my professional career to 
have been asked by Secretary Gates and to have been nominated 
by President Bush for this extremely critical position, 
particularly at this difficult time.
    This concludes my statement. I welcome your questions.
    Chairman Levin. Thank you, General.
    Dr. Casscells.

STATEMENT OF S. WARD CASSCELLS, M.D., TO BE ASSISTANT SECRETARY 
                 OF DEFENSE FOR HEALTH AFFAIRS

    Dr. Casscells. Mr. Chairman, Senator Warner, and 
distinguished members of the committee, thank you for this 
opportunity today. I am honored to be here to answer your 
questions and to learn from you.
    This is, for me, the honor of a lifetime, and I take it 
very seriously, as someone who is just back from the conflict 
and who lost friends there, and who, himself, was a patient 
there and a doctor there. So, this position is a position of 
enormous personal significance to me, and you can be sure that, 
if confirmed, I will work closely with you. While I have a lot 
to learn, I will give it everything I have.
    Mr. Chairman, if I may take the liberty of introducing 
these four redheads who mean the world to me, my wife, Roxanne; 
my son, Sam; my daughter, Lily; and my son, Henry. This will, 
if we are confirmed, be a big move for us, and they are well 
aware that this will be a cut in their allowance. So, this is 
something I thank them for, for their support, and I'd look 
forward to you----
    Chairman Levin. They're all shaking their heads, saying 
that that was not part of the deal. [Laughter.]
    We'll have to negotiate that later, but you have all the 
Senators on your side, kids, on this one.
    Dr. Casscells. Thank you, sir.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Doctor, very much.
    Mr. Ostendorff.

  STATEMENT OF WILLIAM C. OSTENDORFF, TO BE PRINCIPAL DEPUTY 
    ADMINISTRATOR, NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Mr. Ostendorff. Mr. Chairman, Senator Warner, and members 
of the committee, I'm honored to be considered as the 
President's nominee for the Principal Deputy Administrator of 
the National Nuclear Security Administration.
    I'm grateful to President Bush and to Secretary Bodman for 
their confidence in me.
    I want thank Congressman Everett for his very kind 
introduction today.
    I'd also like to thank my family and introduce my wife, 
Chris, of 29 years, and my daughter, Becky, who is a law-school 
student down in Charlottesville. We have two sons who couldn't 
be here, one who is in college down at William and Mary, and 
another who is serving as a 2nd lieutenant with the 2nd Stryker 
Regiment, over in Vilseck, Germany. I also have my in-laws, Pat 
and Lee Miller, my dear sister-in-law, Karen Fales, and her 
husband, John, and their sons, Mark and Johnny. I'm very 
grateful for their support and encouragement over many years.
    I'd like to thank this committee for their strong support 
of the NNSA mission. If confirmed, I'll look forward to working 
closely with the members of this committee and the staff to 
carry out the duties and responsibilities of the Principal 
Deputy Administrator.
    I'm excited about the opportunity, if confirmed, to serve 
in a senior leadership position. The core missions of 
maintaining the safety and reliability of our nuclear weapons 
stockpile, providing safe propulsion for our Navy, and of 
reducing the global danger of weapons of mass destruction are 
absolutely critical. I am humbled by the importance of the 
task, and, if confirmed, commit to work tirelessly and 
professionally to execute these vitally important missions.
    I've been privileged to serve my country in the past. 
Selected by Admiral Hyman Rickover back in 1975 to serve in the 
Navy's Nuclear Propulsion Program, I served on six submarines, 
and had the honor of commanding the U.S.S. Norfolk and 
Submarine Squadron 6. I'm confident that my nuclear reactor and 
nuclear weapons operational background, as well as leadership 
experience, will serve me well, if confirmed.
    My past 3\1/2\ years as a counsel and staff director to the 
Strategic Forces Subcommittee on the House Armed Services 
Committee has given me the opportunity to work very extensively 
and closely with this committee and its staff, and has also 
instilled a deep appreciation for the role of congressional 
oversight of the executive branch.
    The NNSA national security laboratory's and production 
plant's workforce, both Federal and civilian, comprise a vital 
national asset, one critical to our future national security. 
If confirmed, I intend to provide the strong leadership and 
management required for NNSA to continue to execute its 
national security missions.
    If confirmed, I'll also look forward to working with the 
members of this committee and its staff. I commit to you 
communications founded on integrity and responsiveness. I 
appreciate the opportunity to appear before you today and look 
forward to your questions.
    Chairman Levin. Thank you, Mr. Ostendorff.
    Again, we want to thank all the families for coming today. 
We know how important it is that you be here for these 
nominees. As a father and a grandfather, I particularly know 
how important it is for the younger kids to be here, what a 
boost that gives to our nominees.
    Let's have an 8-minute round, if that's all right, Senator 
Warner, for our first round.
    Let me start with you, General Kicklighter. The question of 
the IG's independence is, of course, critically important to 
Congress, to the Nation, and not just to this committee, by the 
way; other committees that have responsibility relative to IGs 
look very closely and intensively at the operations of the IGs 
to be certain that there's no intrusion on the independence and 
objectivity of the IGs.
    In your response to pre-hearing questions, you stated that, 
if confirmed, you would fight to maintain the independence of 
the Office of Inspector General. We asked you a series of 
questions about the circumstances under which you thought it 
might be appropriate for senior DOD officials to request that 
the DOD IG not investigate a particular matter or not issue a 
report on a particular matter. Your response was that only the 
Secretary of Defense had the authority to make such requests to 
the DOD IG, and that such authority exists only with regard to 
sensitive matters within the scope of section 8 of the 
Inspector General Act, and that the authority has never been 
exercised. Is that your understanding?
    General Kicklighter. Yes, Mr. Chairman, that is my 
understanding.
    Chairman Levin. You also stated that any such request 
outside of the authority given to the Secretary of Defense 
under section 8 would be inappropriate and that you would 
reject such a request and report it as a ``particularly serious 
or flagrant problem, abuse, or deficiency,'' under section 5(d) 
of the Inspector General Act. Is that correct?
    General Kicklighter. That is correct, Mr. Chairman.
    Chairman Levin. Thank you. Is it your understanding that 
the Secretary's authority under section 8 is personal to the 
Secretary, and that it cannot be exercised informally by 
members of the Secretary's staff or anyone else?
    General Kicklighter. That is my understanding, Mr. 
Chairman.
    Chairman Levin. You also indicated, in response to our pre-
hearing questions, that it is appropriate for the IG to consult 
with officials in DOD before issuing an audit report ``to 
ensure that the information in the report is factually accurate 
and to resolve or minimize disagreements, where appropriate.'' 
Would you agree that that process must be transparent? In other 
words, that the report in the IG working papers should reflect 
the comments made by DOD officials and any changes that were 
made in response to those comments?
    General Kicklighter. I would, Mr. Chairman.
    Chairman Levin. Relative to Walter Reed, deficiencies in 
housing and administration of injured soldiers, marines at 
Walter Reed, have focused attention on an overly bureaucratic, 
adversarial, and confusing physical disability evaluation 
system in DOD. The officials have testified that they're 
committed to improving the system to make it easier and fairer 
to disabled servicemembers. In your view, what role should the 
DOD IG have in improving the DOD disability evaluation system?
    General Kicklighter. Mr. Chairman, I don't have knowledge 
of what skill sets and staff we have, but I certainly would 
strive to ensure we have the expertise we need to provide the 
oversight to ensure that system is working as it should and 
we're taking care of those wounded men and women coming back 
off the battlefield. That would certainly be a very high 
priority.
    Chairman Levin. Finally, General, at the request of the 
Armed Services Committee, the Office of Inspector General has 
provided us with copies of source documents from the IG's 
review of the DOD-directed investigations of detainee abuse. 
We've requested source documents from the IG's review of the 
activities of the Office of Under Secretary of Defense for 
Policy prior to the war in Iraq. These documents have also been 
requested by the Select Committee on Intelligence. Will you 
pass along to the folks from the Department with whom you are 
now working that the commitment of the acting IG to provide 
those documents to the committee is important to us? We've, 
again, asked for these documents, and we need to know when 
those documents would be presented to us. Would you ask your 
coordinator to get us that date?
    General Kicklighter. Mr. Chairman, I will certainly pursue 
that and try to get you that date. If confirmed, I will pursue 
that as the IG.
    [The information referred to follows:]

    The requested source documents from the Inspector General's review 
of the activities of the Office of the Under Secretary of Defense for 
Policy prior to the war in Iraq were provided to the Senate Select 
Committee on Intelligence on March 30, 2007. The Acting Inspector 
General informed staff from the Senate Armed Services Committee of the 
transfer.

    Chairman Levin. We hope that those documents are provided 
immediately.
    General Kicklighter. I will certainly proceed down that 
line, Mr. Chairman.
    Chairman Levin. Thank you.
    General Clapper, under the DOD directives, the Under 
Secretary of Defense for Intelligence has primary 
responsibility for DOD intelligence, interrogations, detainee 
debriefings, and tactical questioning, and serves as the policy 
advisor to the Secretary of Defense regarding intelligence 
interrogations. If confirmed, will you ensure that DOD 
interrogations comply with the requirements of Common Article 3 
of the Geneva Conventions, the Detainee Treatment Act, and the 
Army Field Manual?
    General Clapper. Absolutely. Yes, sir, Mr. Chairman.
    Chairman Levin. Thank you.
    The Under Secretary is responsible for overseeing the 
production of substantive intelligence, on the one hand, and 
for ensuring that detainees are treated humanely, on the other 
hand. Is it right that we put both jobs in the hands of one 
official, or would it be better, in your view, to split them, 
for example, by having the Under Secretary for Policy to be 
responsible for policy regarding detainees?
    General Clapper. Mr. Chairman, I actually haven't 
considered that. I just think that though it would be difficult 
to split that oversight responsibility, since the two are so 
inextricably bound, so I guess my going-in position right now, 
sir, this would be my personal view, is that should remain the 
province of the Under Secretary of Defense for Intelligence.
    Chairman Levin. Thank you.
    General, in your answers to the committee's advance 
questions, you indicated that you thought a major challenge in 
the Intelligence Community is to ``clarify roles and 
responsibilities in clandestine activities.'' Can you explain 
what you meant by that?
    General Clapper. Sir, for my own part, I think it is 
essential that there be clarity between covert operations, 
which is a term that is statutorily defined, has a specific 
purpose, to elicit change in the political, economic, military, 
or diplomatic behavior of a target. In that context, covert 
activities are normally not conducted, I don't believe, by 
uniformed military forces.
    As contrasted with clandestine activities, at least in my 
mind, the important distinction is that which is passive 
intelligence-collection, information-gathering, no matter how--
which may be conducted, albeit true, under very risky, 
hazardous conditions. Of course, there is the connection 
between when you are doing clandestine collection as an 
enabler, in support of a covert activity. I believe that, to 
the maximum extent possible, there needs to be a line drawn 
from an oversight perspective, as well as a risk perspective. 
The important consideration here is whether if such an activity 
is revealed inadvertently, or an adversary nation, in which 
such an activity is being conducted, discovers it, that, in the 
case of military forces, the Government would have the option 
of acknowledging that, which then entitles those military 
forces proper treatment under Geneva Conventions, et cetera; 
whereas, that is not the case with covert activity as 
statutorily defined. That's why I think there's a distinction 
between activities conducted by DOD and the Central 
Intelligence Agency (CIA).
    Chairman Levin. Just to conclude that point, since my time 
is up, the Department has been ambiguous, at times--or 
ambivalent, at times--about how military personnel, who might 
be captured conducting clandestine operations, would be 
treated, and whether their military status would be 
acknowledged. You indicated there is an option of acknowledging 
them. My question, I guess, would be this. Should it generally 
not be the policy to acknowledge the status of military 
personnel in such a situation? Should that not be the going-in 
assumption?
    General Clapper. Sir, obviously, you would prefer that--I'm 
speaking theoretically here, or hypothetically--the particular 
operation would not be revealed; but, if it is, I personally 
think it's better that you be in a position, and be prepared 
to, and have planned for, acknowledging the operation if it 
involves military personnel, the expectation is that they could 
be accorded treatment in accordance with the Geneva Convention. 
If you don't do that, then you put them in jeopardy for not 
being accorded those privileges.
    Chairman Levin. It is the expectation of our military 
personnel, is it not, that they will have those protections if, 
in fact, they are captured or detained?
    General Clapper. Yes, sir, I believe so.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. Thank you.
    I'll yield to Senator Inhofe, and then I'll be here for the 
balance of the hearing.
    Chairman Levin. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman, and thank you, 
Senator Warner. We're working on the other committee that you 
and I are privileged to serve on today, so I have to do some of 
those duties.
    Let me start with you, General Clapper. When you first came 
into my office, I could tell I hit a sensitive note when I told 
you that, for so many years, I've been, in both the House and 
the Senate, concerned about the process for getting security 
clearances. We've seen the Government Accountability Office 
(GAO) reports that talk about this, and so, it's like a lot of 
things in this system here in Washington. We all know it's 
wrong, we all know it doesn't work, we all know it's 
antiquated, we all know that there are new technologies that 
can be used, and we all express our concern, and then nothing's 
done. Is something going to be done?
    General Clapper. Sir, it's certainly my intent, in the time 
that I have--if I'm confirmed, I would have remaining to do 
something about a system that is an anachronism.
    Senator Inhofe. Yes.
    General Clapper. We basically do security clearances the 
same way we've done it since I first came in this business, 40-
plus years ago. Having recently gone through this once again 
for this confirmation process--and I know I've spoken with 
Director McConnell about this; he feels the same way, having 
endured the same process--we absolutely have to do something to 
change direction.
    Senator Inhofe. Yes.
    General Clapper. I believe there is great potential in 
researching the social sciences for determining other ways of 
gauging the trustworthiness--and that's really what this is 
about--the trustworthiness and reliability of people, other 
than pounding on people's doors. I think if I am confirmed and 
I have the wherewithal to do that, I'd like to pursue research 
for that.
    In the meantime, the position of the Under Secretary of 
Defense for Intelligence does oversee the Defense Security 
Service, which clearly has management challenges of 
longstanding. It's been explained to me, I think they have a 
good strategy for trying to get well, but it's going to take 
money and attention.
    Senator Inhofe. Yes, this is the information age. There are 
so many things that are automated. I can't imagine anything, as 
you said, not changing in 40 years. So, what I would request of 
you--and you and I talked about this--there are a lot of 
technologies out there I'd like to have you exposed to, and I 
think you already have been, to some of them. But maybe in 
another, oh, let's say, a couple of months, if we could have a 
conversation about this to see if there's any progress being 
made--is that reasonable? We could kind of stay on top of this?
    General Clapper. Absolutely, sir. I'd be pleased to do 
that, sir.
    Senator Inhofe. Good. Good.
    General Clapper. I appreciate your interest.
    Senator Inhofe. All right. Good, thank you.
    Mr. Ostendorff, you have a tough job ahead. I've been 
concerned about keeping the secrets--I was quite outspoken, 
back during the 1990s, when the energy labs were just opened 
up. They did away with color-coded badges because they said, 
``Well, that's demeaning to people with a lesser clearance than 
others might have.'' Background checks, wire-tapping, all these 
things, I just want no holds barred. I want to have security. I 
just want to know if you have any new ideas on implementing any 
new systems where we can keep our information secure.
    Mr. Ostendorff. Senator, I'm aware, as I know you are, of 
the recent events at Los Alamos National Laboratory, associated 
with the loss of classified material.
    Senator Inhofe. That's specifically what I had in mind.
    Mr. Ostendorff. Yes, sir. There have been several 
investigations by the Department of Energy IG and by other 
independent bodies, looking at those security practices, 
procedures, and compliance culture. I would commit, if 
confirmed, to taking a hard look at what is the Federal 
oversight force at the site doing to ensure that the security 
standards are being met, that there are rigorous processes that 
are being followed, and would come back to the committee, and 
yourself, and provide you with feedback from that review.
    Senator Inhofe. That's good.
    General Kicklighter, I have the greatest respect for 
Senator Akaka, but he dropped the ball in his introduction of 
you, and forgot to mention the most significant thing, and that 
is the fact that you were destined for greatness when you 
started your career at Fort Sill, OK.
    General Kicklighter. Yes, sir.
    Senator Inhofe. In your new relationship, I think you will 
be inundated with requests, not just, as the chairman said, 
you'll be getting from the Secretary, but also Members are 
going to have requests. I would hope that you would keep in 
mind and evaluate these as they come in, because sometimes 
you'll get legitimate requests, sometimes they'll be 
politically inspired requests. I think you're the person who 
can make those determinations and keep that in mind.
    General Kicklighter. Yes, sir, I certainly will.
    Senator Inhofe. Good. Good.
    Dr. Casscells, four redheads. I can't believe that. 
[Laughter.]
    That's great. I understand that when you were over there, 
you were injured, so you kind of went through the process. 
We've all watched the television series M*A*S*H over the years. 
How similar was that to your experience?
    Dr. Casscells. Senator Inhofe, I wasn't badly injured. It 
was a small injury, but it was just enough to get me into the 
system as a patient. We were coming back from visiting an Iraqi 
hospital, and the convoy had to swerve because of a tripwire in 
the road to avoid an improvised explosive device (IED). We went 
up on the curb, and I was thrown into the side of the Humvee 
and got a bloody elbow that got infected. I had that drained at 
the 10th Combat Support Hospital (CSH) in Baghdad. It gave me 
an interesting insight, because, as the major was draining my 
elbow, an Army captain who was a nurse came in and said, 
``Heads-up, everybody, we have three birds coming in with about 
six Iraqi victims, bad IEDs. Everybody who hasn't given blood 
lately, roll up your sleeves.'' Even though I was the senior 
health policy guy for the country, I didn't realize that all 
the Iraqi blood transfusions came from our soldier volunteers. 
Then she caught sight of me and said to the major, ``What's 
that colonel doing here? Get him out in the hall. I need that 
bed.'' [Laughter.]
    Senator Inhofe. I think that answers the question.
    Dr. Casscells. But then, when I got back, I did face the 
bureaucracy that has been in the news lately, and that is very 
frustrating. If it's frustrating for a colonel, you can imagine 
how frustrating it is for a sergeant or corporal, particularly 
if they've had a head injury or their family is 1,000 miles 
away and can't be advocates for them. So, sir, we have to fix 
that and make it fair and fast.
    Senator Inhofe. Yes. One of your biggest problems is going 
to be that you probably won't have the resources that you think 
are really necessary to get this done. You're going to have to 
be very innovative. It's going to be difficult to take care of 
all the needs. But I know, with your background, you'll do a 
great job.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Inhofe. Thank you, Senator Warner.
    Chairman Levin. Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    I want to speak to the new IG for probably most of my time. 
I have been trying to get a handle on the number of people that 
we currently employ in DOD to look over the shoulders of the 
way we're spending our money in DOD. I'm wondering if you have 
any idea of the total number of employees that are currently on 
the payroll in all of the auditing and investigation different 
parts of DOD.
    General Kicklighter. Senator, I do not have that data. I've 
certainly looked at the numbers that they have in the IG's 
office, but that's only a small portion of the numbers that go 
all across DOD. If I am confirmed as the IG, I would certainly 
dig into that for you and report back to you what those numbers 
are and what I think we may be getting as a return on our 
investment.
    Senator McCaskill. I think it's close to 20,000 people, 
from best I can tell. That's a lot of people--20,000 people. 
Now, the interesting thing about it is, the organization chart 
is not pretty. You have the IG's office, which you, of course, 
will head; then you have defense contracting; then you have the 
IGs in each of the Services.
    General Kicklighter. Right.
    Senator McCaskill. In each of those instances, there are 
performance audits being done, with the exception of the 
Defense Communications Agency (DCA). There are not performance 
audits there. Of course, understanding that performance 
audits--if any part of auditing could be called exciting, it's 
performance auditing; and I'm kind of one those weirdos that 
thinks it's all exciting. But the number of performance audits 
that are done--one of my concerns is, who's consuming these 
products? Could you tell me your view on--you've been in the 
military a long time--how many IG reports have you read since 
you have been in the military?
    General Kicklighter. I can tell you that each time I was in 
a command position or a management position and the IG wrote a 
report, I read it very carefully. I think, generally speaking, 
that the IG reports are considered very seriously at very high 
levels. I would hope that's true. I certainly would look into 
that.
    Senator McCaskill. I'm curious about the audit products 
from the other IGs, because I think they would, obviously, be 
instructive, regardless of which Service you're in. I'm 
wondering who consumes those, the ones that are produced by the 
IG in the Army, the IG in the Marine Corps, the IG in the Navy, 
and the IG in the Air Force.
    General Kicklighter. I am certainly not an expert in that 
arena right now, but I think one of the responsibilities of the 
DOD IG's office is to provide oversight for all of the audits, 
to make sure that, to the extent possible, you're not 
duplicating and overlapping, and, also, you're not leaving a 
lot of gaps out there that nobody's looking at. So, what I 
believe you have to do--and I certainly have a lot to learn in 
this arena, and I know you know an awful lot in this area--is 
that we have to look at that to make sure it is an integrated 
effort and we are using that data, to the best of our ability 
and not wasting resources.
    Senator McCaskill. I have looked into how many 
Antideficiency Act (ADA) violations have actually been punished 
in DOD, and the ADA obviously is just one of the tools, but a 
very important tool to get in contracting abuses as it relates 
to spending money you shouldn't be spending, spending it in 
ways you're not supposed to be spending it, and spending it 
when you're not supposed to be spending it.
    General Kicklighter. It is very important.
    In fiscal year 2005, there were seven ADA violations that 
resulted in punishment. Seven. Billions and billions and 
billions of dollars and 20,000 auditors and investigators, and 
we got 7 cases that resulted in punishment. In fiscal year 
2006, there were nine.
    Now, part of the problem here is, of course, that the 
military wants what they want when they want it, and, for all 
the right reasons, they believe the purposes for which they 
want it is noble. I can't imagine the amount of money we're 
spending looking into ADA violations, because when you look at 
the process by which these are looked into, it involves 
hundreds of people. I mean, first somebody has to look at it, 
and then somebody else looks at it, and then somebody else 
looks at it, and then there's an opportunity to correct it. If 
the money is there--this is what I think a lot of people don't 
understand, that the ADA violations, when it's discovered, if 
you can go back and find the money that is appropriate to spend 
on that, it's like ``no harm, no foul.'' It's as if you didn't 
do anything wrong. Now, that's not exactly how we deter 
behavior.
    I'd like your view on how we get accountability. I mean, 
DOD has been on the high-risk list for GAO since 1990. There's 
a sense that everybody kind of throws up their hands and says 
we're not going to do any better, this is just the way it is. 
I'd like your commitment today. There's the realization that in 
government you don't have bottom-line pressure, it's not as if 
there is an issue of profit or not-profit. That's the 
discipline in the private sector. In government, the discipline 
is the rules and whether or not people are held accountable. I 
would like your view on this ADA process and how in the world 
we are ever going to deter behavior if we are coming up with 
fewer than 10 people a year that are punished for violating 
that law.
    General Kicklighter. Senator, let me respond to that. I 
certainly agree with your comments.
    I really don't feel qualified to give you an answer today, 
but I'd like to get back to you on the antideficiency 
violation. I think the things that you pointed out that are 
occurring internally, I think the fact that we are doing so 
many things with other Federal agencies, also have problems 
with antideficiency violations when we're exchanging funds 
between Federal agencies.
    Senator McCaskill. Right. Interagency contracts. That's a 
whole problem.
    General Kicklighter. Yes. But if you would allow me--if 
confirmed, I would very much like to look into this in great 
detail, because I think your points are extremely valuable, and 
I'd like permission to come back and report back to you on 
this.
    Senator McCaskill. That would be great. Thank you very 
much.
    Doctor, I certainly am impressed with your background and 
your experience. I'm wondering how you feel about going into a 
job where your primary frustration isn't going to be your skill 
as a doctor; your primary frustration is going to be how you 
begin to get a handle on a system where things are so 
complicated. I will tell you that one of the soldiers I talked 
to at Walter Reed, his narrative summary, which, as you are 
aware, is very important to these soldiers that have been 
wounded, because it really sets almost in stone, how they're 
going to be treated, then, whether they'll remain on active 
duty or whether they're going to be retired, militarily, or 
whether they're going to be transitioned to VA. It took his 
narrative summary 2\1/2\ weeks to go across the hall after the 
doctor had done it--literally 2\1/2\ weeks, literally across 
the hall. I would like your view on what kind of tenacity do 
you bring to this, in terms of arm-wrestling the reality that 
these systems have become so bogged down with paper. There is 
technology, by the way, that's other places in the military 
where a soldier can pull up his record on any computer in the 
world, but the medical part, the part that really is causing 
the stress in these soldiers' families about how they're going 
to be treated the rest of their lives. It's very difficult for 
them to get information in a way that would reflect the fact 
that we're in 2007.
    Dr. Casscells. Senator McCaskill, your points are very well 
taken, and I have a major awareness that I will need a lot of 
help, including this committee's help, in getting things done 
that actually cut outside the lane of the Assistant Secretary 
of Defense for Health, because these problems do involve a very 
inefficient and, to some extent, unfair disability 
determination system, a very complex health care system that 
has numerous controversial issues in it. The latter, I am more 
comfortable with.
    I will say that the directions that Dr. Winkenwerder has 
been heading and pushing for an electronic medical record, 
numerous efforts to improve efficiency and accountability, are 
things that I would, if confirmed, naturally want to 
accelerate, if that can be done. I don't know whether they're 
at top speed or not. I do know that when I was in Iraq, it 
amused me to look up my record on Army Knowledge Online, one of 
our Web sites, and to find that my deployment status was amber, 
which means I was not fit to be deployed, and yet, there I was. 
So, clearly there are issues like that. We have primarily a 
paper record. There are errors in paper records. There are so 
many questions that are being addressed now by these various 
task forces and hearings that are going on that one would want 
to wait and study them carefully, if confirmed, because, to 
date, I just know what I've read in the papers. I've driven by 
the Armed Forces Retirement Home, walked around there, same 
with Building 18. I've called the Soldier Hotline, the 800 
Hotline. It's clear that the military is taking this very 
seriously. I've read the President's statement, and Secretary 
Gates and Acting Army Secretary Pete Geren, and it sounds like 
there's a lot of support for improving things to take a system 
which is very good and make it absolutely superb.
    Senator McCaskill. Thank you all for your service. I 
appreciate it very much.
    Dr. Casscells. Thank you, ma'am.
    Chairman Levin. Thank you, Senator McCaskill.
    Just on that one point of interagency contracts, talking to 
my staff back here, we, back in the early 1990s, with a little 
subcommittee over at what was then called the Governmental 
Affairs, now the Homeland Security and Governmental Affairs 
Committee, got into what we then called ``offloading,'' which 
is the same thing as ``interagency contracts.'' The best 
estimate we can get is that there's probably 10 to 20 times 
more money funneled through those contracts now, minimally, 
than was then. There's been legislation that's been adopted to 
try to stop it. We're going to review more legislation. I think 
there's been two hearings now, in a subcommittee of this 
committee, on these interagency contracts. The opportunity for 
abuse is real, there's no accountability, there's very little 
oversight, and there's no competition, frequently. But Senator 
McCaskill's interest and passion in this area is going to help 
us get over the goal line. We very much thank you for your 
interest in these issues which are very dry sometimes. It's 
very few Senators, frankly, that are willing to really sink 
their teeth into these issues; and so, your willingness to do 
so with such gusto, I must tell you, is really a terrific 
boost.
    Senator McCaskill. You should know, Mr. Chairman, I visited 
the temporary building, the Army Materiel Command at Fort 
Belvoir, yesterday, so I'll be anxious to share with you how 
temporary it felt. It was the one that's 230,000 square feet.
    Chairman Levin. Thank you, Senator.
    Senator McCaskill. You're welcome.
    Chairman Levin. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    To follow on our distinguished colleague's questions to Dr. 
Casscells, you mentioned his primary management skills would be 
heavy, but, in my conversations with the good doctor, he 
assured me that he's going to do a little hands-on medicine 
while he's in this position, not unlike our distinguished 
former majority leader, Bill Frist, would intermittently leave 
the Senate, put the frustration of the Senate behind him, and 
go out and do heart operations. I always admired him for that.
    I hope that these management burdens--you'll handle it, 
but, at the same time, keep your skills up, and a little hands-
on medicine, I think, is good for the heart and the soul, and 
to show the troops that you still know how to do it.
    The TRICARE program, something that this committee has 
taken great pride in--and you noted in one of your replies to 
the committee's advance questions, that one of the TRICARE 
strengths is that it is very inexpensive for the beneficiary, 
compared to other health care plans. ``This statement may well 
be inconsistent with the views of senior leaders in the 
Department who have described TRICARE as unsustainable in its 
present form.'' So, therein rests a challenge for you to sort 
that out. I don't presume, at this point in time, that you can 
give us a great deal of insight into how you would treat 
TRICARE, but it's viewed by the men and women of the Armed 
Forces and their families as a very essential part of the 
contract America makes with these families when they undertake 
their role in the military. So, I hope you give us your 
assurances you'll do the best you can to strengthen that 
program.
    Dr. Casscells. Yes, sir. Senator Warner, I share your 
concern. If I understand you correctly, sir, that increasing 
copays and deductibles, particularly at this time, run the risk 
of making it harder for us to recruit and retain the very best, 
because people value enormously the health care given in the 
military. They are willing to sleep in tents, on cots, they 
don't demand the writs, but they would like, and deserve, the 
very best medical care. This is true for their families, and 
their budgets are lean. I know that the copays and the 
deductibles have been flat for 12 or 13 years, and there's 
understandable interest in raising them, because the private 
sector is raising theirs, to decrease utilization. But, sir, 
there are other efficiencies which can be sought. As Dr. 
Winkenwerder has told this committee, and told us, as soldiers, 
the more we get involved in our care, taking ownership of our 
care as patients, the more we utilize electronic records, the 
more we utilize disease management tools, Web-based discussion 
groups, confidential chat groups, the more people help 
themselves and help each other--these are often low-cost 
opportunities for savings and health.
    Finally, sir, I think, as part of our pay-for-performance, 
we need to include pay-for-prevention. It has to be possible to 
incentivize people better to engage in prevention for 
themselves and to incentivize caregivers.
    Senator Warner. I think that's a point well taken.
    Moving on to another mission--and maybe you haven't really 
had this brought to your attention fully, but the recruiting 
and retention of doctors, nurses, dentists, and other health 
care professionals is a source of great concern, and we must 
keep the best and the finest in the ranks of the uniform; at 
the same time, acquire, where necessary, civilians to work 
under a contract arrangement in our medical system. As one of 
the heads of personnel put it, we are failing in these areas 
right now. I hope that you can put this as one of your top 
priorities. You have an impressive career in the civilian 
sector, and a strong basis of knowledge about military 
medicine, and you have to go out and get the finest and the 
brightest to keep the ranks filled.
    In that context, two things. We, here in Congress, years 
ago--as a matter of fact, I was in DOD when the very eminent 
Deputy Secretary of Defense, David Packard, had the idea to 
establish our own medical college. That's been done, the 
Uniformed Services University of the Health Care Sciences. That 
came under scrutiny here recently in the BRAC process. A number 
of us really went to bat and dissuaded the BRAC Commission from 
discontinuing that. It has provided an extraordinary number of 
very capable individuals, and they not only fulfill their 
initial obligation, which they serve to pay back the Federal 
Government and the taxpayer for their education, but they 
continue on, and they have a very high percentage of those 
physicians and others being trained becoming careerists in the 
military. I would hope you'd take a good look at that.
    If I might say, we are fortunate here in Congress to have a 
very able retired submariner, now an admiral in the medical 
corps, Dr. Eisold, who's our physician, and he cares for all of 
us and disciplines all of us pretty well, I might add. He's 
tough. But he's often come to me, particularly when I was 
chairman of this committee for 6 years, and addressed questions 
regarding the medical fraternity throughout the Services, was a 
helpful advisor to me. I would hope you'd find the opportunity 
to meet him--I'd be happy to arrange that--just to draw on his 
many years of experience in military medicine, and, having come 
from the ranks of a submariner before he took his medical 
training, he actually was in the Navy, then took his training 
as a doctor, and then went into the medical sciences of the 
military, and now cares for us here. He really is an 
extraordinary individual.
    I was going to suggest, also, that you focus on the 
question of the Gulf war illnesses. That frequently comes 
before this committee, illnesses that could have been 
associated with service in those areas of responsibilities 
during that period of time.
    So, I'll conclude my questions. I wish you well. I think 
you're eminently qualified, and I know that you'll do a 
splendid job, together with your family.
    To you, Mr. Ostendorff, I thank you for your service. I 
want to start off with the question of the nuclear stockpile. 
That's a program that this committee has worked on for years 
and years. It's to go back and assess what is the status of the 
stockpile today, its availability in the time, should it--
hopefully never be needed--but, if it were needed, we need to 
know whether that stockpile can meet the contingency required. 
How familiar are you with the program?
    Mr. Ostendorff. I'm fairly familiar, Senator, based on my 
experience with the oversight committee.
    Senator Warner. So, you full well know Congress's concern.
    Mr. Ostendorff. Yes, sir.
    Senator Warner. I'm anxious to continue to support that 
program, and the tremendous amount of money, billions of 
dollars we've invested in it. But, in the absence of actual 
testing--and I support the absence of actual testing--and, 
therefore, this is the alternative, to determine the viability 
and capability of the stockpile. Do you have any particular 
thoughts you want to share with the committee at this time?
    Mr. Ostendorff. Senator Warner, in the context of that 
question, I think the ongoing Stockpile Stewardship Program run 
by NNSA that has its life-extension programs to look at the 
surveillance of aging effects on existing weapons that, in some 
cases, have been around for 30 years or more, that those 
ongoing research and development efforts are crucial, not just 
to maintaining the existing stockpile, but to other efforts, to 
learn more about materials in the context of some proposals for 
the Reliable Replacement Warhead (RRW) Program. It's all part 
of one integrated program.
    Senator Warner. Let's go to that very point, the RRW. 
Earlier this month, the Nuclear Weapons Council, a joint body 
of the Departments of Defense and Energy, announced the 
selection of a design team for a possible replacement warhead. 
This RRW would, if developed, replace a portion of the Nation's 
seabased nuclear weapons. Based on your knowledge of the 
program to this point, do you believe it will be possible to 
develop and field a replacement warhead without requiring 
underground nuclear testing?
    Mr. Ostendorff. Yes, sir. I have been a participant, along 
with some of the staff who are behind you, in a number of 
briefings by NNSA, including the laboratory directors at Los 
Alamos, Lawrence Livermore Laboratory, and Sandia. We have 
received very strong technical assurances that the RRW design 
selected earlier this month can be pursued without the need to 
resume underground nuclear testing. The various tools in the 
Stockpile Stewardship campaign are viewed as being robust and 
sufficient to the task to make sure that that can proceed. Next 
year, there'll be a design, definition, and cost study. Of 
course, any future plans to actually build an RRW weapon would 
require congressional authorization in a future budget.
    Senator Warner. I thank you. I wish you well.
    General Kicklighter, in my opening statement, I expressed 
to you some of my concerns. You answered it, in terms of the 
independence that you must have to successfully operate. I 
would, however, draw your attention to this tragic case of 
Corporal Pat Tillman, which was just handled, but only from the 
context that--how long it took the IG to do this. We had 
another case here--it was a pressing case of the Air Force 
Academy, and certain questions regarding, unfortunately, a 
multitude of issues. Hopefully, the Academy's on a straight and 
true course now, but, for a while, it was in stormy seas. I 
would hope that you'd feel free--and, really, I ask that you 
come back before the committee, at least inform the staff, in 
about 90 days--do you have enough resources to operate that 
office as you see appropriate?
    General Kicklighter. Senator Warner, I certainly will be 
glad to do that. In fact, my intention is to, if confirmed, 
take a look at the mission resources available, and see what's 
really needed in the way of structure and staff. I certainly 
will be back to this staff and to this committee within 90 days 
with my findings and recommendations.
    Senator Warner. All right.
    General Clapper, I've also covered--and others--most of the 
questions that were of concern to me, but I want to bring one 
to your attention, because I, fortunately, with other members 
of the committee, have spent a lot of time here in these many 
years working on unmanned vehicles. As a matter of fact, I 
think it was 8 or 10, 12 years ago, I challenged the private 
sector and the forces to each of them to get up to a certain 
percentage of unmanned vehicles into their system. Now, there's 
a lot of programs out there right now and, that's fortunate. A 
lot of these programs are being developed jointly. I would ask 
that you look at this Unmanned Aerial Vehicle Program, because 
it is an intelligence-gathering system, and come back to the 
committee if you feel that there's just too much duplication 
and effort out there, and other areas where we have a 
shortfall. Do you have any particular points you'd like to add 
about the unmanned vehicles here this morning?
    General Clapper. Other than to say, sir, that, from my NGA 
experience, I think it has a tremendous potential, and I think 
I share your concern about management, proliferation, overlap, 
and duplication. I would commit to you to look into that, sir, 
if confirmed.
    Senator Warner. Thank you, General. Also, through the 
years, and particularly once Congress put in a new framework of 
laws about our intelligence system--both Senator Levin and I 
have had years of experience on the Senate Select Committee on 
Intelligence, and we were part of drawing up those laws--
there's still a process to bring DOD into conformity with--I'm 
not suggesting they're in violation now--but still, to bring it 
into conformity with the overall goals of trying to establish a 
system which comes up under the National Director for 
Intelligence. But I feel very strongly--I just say for myself, 
at this point in time--historically, the military have had 
their own responsibility to develop that intelligence, 
primarily tactical, which they need for daily operations of 
those forces. In this push, pull, and reorganization, we've 
done our best to preserve that. But that's something I want you 
to keep a watchful eye on and make certain that it does not 
fall below that level, drawing on your extensive experience, 
that these operational commanders demand, and must have, to 
effectively handle the missions that they are assigned. Do you 
have a view on that?
    General Clapper. Senator Warner, I think you're exactly on 
target to raise that issue. It is a concern. Having served in 
combat at the tactical level, having served as a J-2 three 
times, having served as service intelligence chief once, and 
having served as the director of a national agency embedded in 
DOD, as well as the Defense Intelligence Agency, I think I have 
some background and experience to examine all dimensions of 
that issue.
    When it comes down to it, it's a balance that has to be 
struck between the competing fiefdoms, if you will. But I share 
your perception on that.
    Senator Warner. Welcome to the arena, and fight hard for 
your troops.
    General Clapper. I will, sir. Thank you.
    Senator Warner. Because balance is fine, but, if there's a 
tilt, tilt a little towards the troops.
    General Clapper. Sir, there is absolutely no----
    Senator Warner. You don't have to answer that question. 
[Laughter.]
    General Clapper. Okay, sir. No ambiguity about that.
    Senator Warner. Yes, no ambiguity about that.
    Mr. Chairman, I think that concludes all the questions that 
I would have for this distinguished panel of witnesses. What an 
extraordinarily well-qualified group of nominees. I think the 
President and his team are to be congratulated on that.
    I wish each of you well. It's a challenge. Many of you have 
been before this committee and other committees of Congress to 
accept positions, but this is a new chapter in your life, and 
that of your families, and I wish you well.
    Thank you very much.
    Chairman Levin. Thank you, Senator Warner.
    Let me ask you, first, General Clapper, about the Counter-
Intelligence Field Activity (CIFA). There's been a suggestion, 
I think, in last week's Newsweek, that there's a review going 
on of the activities of CIFA, out of concern about CIFA's 
collection and retention of information about U.S. citizens. 
Also, it's heavy reliance on contractors. This was the question 
of Talon, and this is the question of the database being 
maintained with names and information, improperly. Do you 
believe that CIFA itself should be engaged in 
counterintelligence collection and analysis, or should it be 
focused on coordinating the activities of the military 
Services?
    General Clapper. Sir, my inclination is probably the 
latter, more of an overseer, coordinator, orchestrator, if you 
will, of counterintelligence activities. There may be cases 
where DOD departmental equities and security facilities or 
people are in jeopardy and where the CIFA would have to play a 
lead role. With respect to the Talon database program, that's 
something I have had the opportunity to delve into, and there's 
no question that there were, in the initial creation of that 
database, which was sort of a neighborhood-watch sort of thing, 
of some 13,000 records, approximately 186 of them involved 
reporting on U.S. citizens principally demonstrating against 
recruiting stations or educational institutions in support of 
the military. Since about July 2005, it's my impression that 
CIFA has cleansed the database of those records. They are in 
retention in a general counsel repository, for oversight 
purposes. Since that time, there have been mechanisms in place 
to preclude the inclusion of such data.
    It would be my intent, sir, if I'm confirmed, though, to 
look at whether the candle's worth the flame here, to see 
whether the output of this database is really worth having it 
and if some other arrangement could be made to capture the data 
that's important for DOD equities.
    Chairman Levin. Would you let us know about that? Because 
there's been some abuses and excesses here, which is troubling 
to many of us.
    General Clapper. I will, sir.
    [The information referred to follows:]

    Sir, my sense of the Talon database issue, albeit without the 
advantage of being fully immersed in the details, is that OUSDI and 
CIFA leaders have taken appropriate steps to both cleanse the database 
and prevent recurrence of similar problems. Nonetheless, if confirmed, 
I will get back to you and the committee with a more informed read of 
whether the database provides value-added, Mr. Chairman.

    Chairman Levin. Thank you.
    General, your predecessor pledged to the committee to 
refrain from getting involved in the substance of intelligence, 
the production and the analysis of substantive intelligence. 
What Dr. Cambone said is that he saw the role that he was 
occupying as one of policymaking and providing resources for 
intelligence components. Do you agree with that?
    General Clapper. Yes, sir, I do. In general terms, I think 
that the position of the Under Secretary of Defense for 
Intelligence, and, for that matter, his predecessor form, 
Assistant Secretary of Defense for Command, Control, 
Communications, and Intelligence, should play an important 
resource and policy and oversight role, but should not engage 
in substantive analysis issues.
    Chairman Levin. Now, in response to the committee's advance 
questions, you gave us the answer to this, but I want you to do 
this again for the record, if you would. Give us your view on 
the propriety of nonintelligence organizations engaging in 
intelligence analysis.
    General Clapper. Sir, I agree with the commentary that 
Secretary Gates made about this, that intelligence analysis, 
particularly in an all-source context, should be done, 
conducted by those organizations, institutions, officially 
charged with doing so; meaning, in our case, for example, the 
Defense Intelligence Agency or CIA. I think special analytic 
cells that are established for one reason or another, I think 
they bear watching, scrutiny. In prior incumbencies, I've 
encountered those kinds of efforts, and if I were the 
responsible intelligence official, I would want to engage with 
them to determine what the purpose was and what it is that was 
not being satisfied by the established intelligence 
institutions.
    Chairman Levin. Should the established intelligence 
institutions be aware if and when such a cell is created?
    General Clapper. Yes, sir. Absolutely.
    Chairman Levin. Aware of their activity so that they can 
comment, in turn, on those activities?
    General Clapper. Exactly, sir. I would also like to add, 
sir, if I may, that, at the same time, we have questionable 
intelligence activities, and there are also, I think, valid 
red-teaming and this sort of thing. I think it's entirely 
appropriate and necessary, for that matter, that policymakers, 
commanders, whomever, question, probe, push back from 
intelligence. That is certainly a legitimate, appropriate, and 
necessary activity. To a certain extent, there's judgment here 
involved in and it's kind of like pornography, you know it when 
you see it. So, you have to be very vigilant as to the 
existence and purpose of such activities.
    Chairman Levin. When such activities exist, should they be 
open, transparent to the folks that they are red-teaming?
    General Clapper. Absolutely, sir. Absolutely.
    Chairman Levin. Okay, thank you.
    Dr. Casscells, let me ask you about the conversion of 
military medical billets to civilian positions. In a briefing 
to the committee staff last week, General Gale Pollock, the 
Acting Surgeon General of the Army, and Major General Eric 
Schoomaker, who's the new Walter Reed commander, said that they 
believe we've gone too far in converting military medical 
billets to civilian positions and that they're unable to hire 
or contract civilians to fill converted positions in a timely 
manner. General Pollock said that she would request relief from 
the continuing requirements to convert military positions to 
civilian positions, and I'm wondering, what are your views 
regarding conversion of medically-related billets?
    Dr. Casscells. Mr. Chairman, I have not had a chance to 
talk to General Schoomaker or General Pollock, but I'm aware of 
the general issue, and it's a critical one now, because so many 
providers--nurses, doctors, therapists, psychologists--have 
been deployed overseas, so the backfill issue is on everyone's 
mind. It seems that there are not quite enough in some 
specialties to backfill from the Reserves, and there has been a 
strong interest, of course, in converting some billets to 
civilian status in order to accept volunteers, for example, 
from the public health service or from the private world. I've 
been contacted by a number of private doctors who want to 
serve, asking if they have the right training and are the right 
age and so forth. That's something that, if confirmed, I would 
want to look into very closely. But I would certainly not want 
to see critical specialties contracted completely to the 
private sector, because if you contract all your neurosurgery 
to the private sector, then when you have a head-injured 
soldier, sailor, airman, or marine, you won't have a 
neurosurgeon. We had only one neurosurgeon in Baghdad at the 
10th CSH, a person who was well trained, but that person's on 
call 24/7. So, there are some billets, both in the continental 
United States and overseas, that we struggle to fill, and the 
combination of attention by me to recruitment, I think, to get 
some docs like me to sign up in mid-career, as well as 
judicious use of assistance offered from public health service 
and the private practice of medicine and nursing, these should 
enable us to provide these critical services.
    So, there is a balance. Sir, if confirmed, I will look at 
that very closely and be honored to work with you on it.
    Chairman Levin. Thank you. You made reference to electronic 
medical records, and I'm wondering whether you could give us 
some idea as to how you would accelerate the effective 
implementation of a DOD electronic medical records system.
    Dr. Casscells. Mr. Chairman, I haven't been in a management 
role with these records, but I have used electronic medical 
records for some 20 years. I've seen them evolve with painful 
slowness, first at Mass General Hospital and Beth Israel 
Hospital in Boston, at NIH, and Harvard Community Health Plan. 
Everywhere I've worked, we have struggled to implement these 
records, making them more user-friendly, providing incentives 
for doctors to use them, and the like. The same, of course, 
applies to nurses, psychologists, and other medical 
professionals. So, there is no easy answer to this, but I am 
heartened by the fact that DOD and the Veterans Administration 
recently signed an agreement--I think it was in January--to 
create a single in-patient medical record, which would not just 
be an interoperable seamless transition of two records, but 
would be one record.
    There is a lot of commitment to this, a lot of dollars that 
have been spent. It's been a little frustrating to all the 
clinicians. I do know that Armed Forces Longitudinal Technology 
Application is our showpiece right now in DOD health care. 
There are plenty of providers who find it a little bit slow and 
difficult to use. These are motivated, computer-savvy young 
doctors, nurses, therapists, and so forth. So, we need to do 
more to make this more user-friendly and provide better 
incentives, sir.
    Thank you.
    Chairman Levin. Doctor, there's a recent report that 
injured soldiers from the 3rd Infantry Division were sent to 
the training center at Fort Irwin, even though their injuries 
prevented them from participating in training, and, in some 
cases, prevented them from receiving prescribed physical 
therapy. The article quotes military experts as saying that 
they suspect that the deployment to Fort Irwin of injured 
soldiers was an effort to pump up the manpower statistics used 
to show readiness of Army units. During the Army posture 
hearing recently, we asked Acting Secretary Geren and General 
Schoomaker to look into similar allegations about the 3rd 
Infantry Division changing medical profiles of soldiers so that 
they could be deployed to Iraq. Both Secretary Geren and 
General Schoomaker testified it would be improper to change a 
profile for the purpose of making the soldier deployable. Do 
you agree that it is improper to change a medical profile for 
the purpose of making a servicemember deployable?
    Dr. Casscells. Yes, sir, I certainly agree. While I'm not 
familiar with the reports you've gotten concerning Fort Irwin 
and Fort Ord, I do know that we've had many soldiers who have 
asked to be deployed, despite a profile. They've really asked 
that it be set aside and that there be a waiver so that they 
could be deployed. That's quite a different thing from changing 
a profile and basically forcing a soldier to duty. I would look 
very seriously at that.
    Chairman Levin. Okay. We'll look forward to your very 
thoroughly checking this out, because it would be very 
disturbing if, in fact, it's being done for that reason.
    General Kicklighter, if you are confirmed as the IG, will 
you ensure that these allegations, now from two different 
sources, are thoroughly investigated by either the Army or by 
your office?
    General Kicklighter. Mr. Chairman, I will assure you that 
will be the case.
    Chairman Levin. Thank you.
    Mr. Ostendorff, the NNSA has started a review of the 
nuclear weapons complex--I think you've made reference to this 
already--to determine the complex's future--``the future'' 
being defined as 2030. Are you going to be involved in making 
decisions with respect to the complex of the future? Is it your 
understanding that you would be involved in that?
    Mr. Ostendorff. Chairman Levin, it's my understanding that, 
if I am confirmed, I would be involved in assisting the 
Administrator in those decisions, yes, sir.
    Chairman Levin. Would you agree that the following elements 
are necessary to make decisions with respect to that complex of 
the future? I'm going to read them all at once, and then you 
can tell me if there's any that you don't believe are 
necessary. The anticipated size of the nuclear weapons 
stockpile, both deployed and nondeployed warheads; the number 
of different types of weapons in the stockpile; whether a RRW 
is feasible; if the RRW is feasible, what percentage of the 
stockpile will be comprised of those warheads, and what of 
conventional warheads; and what quantity of fissile materials 
would be required to support the stockpile in 2030? Would they 
all be needed to be considered?
    Mr. Ostendorff. Yes, sir.
    Chairman Levin. The NNSA has announced that it will make a 
decision on the future nuclear weapons complex in December 
2008, at the latest, will all of the items that I just read off 
be known at that time?
    Mr. Ostendorff. Mr. Chairman, I am not currently aware of 
the status of discussions between the Department of Energy, 
DOD, and the rest of the administration on the size of the 
future stockpile. That is an area that you've highlighted that 
certainly is a factor, and such things as, future pit 
production requirements, and what number of warheads we have 
for diversity in the stockpile. If confirmed, I would take a 
hard look to make sure that those discussions are transparent 
and are communicated back to Congress.
    Chairman Levin. If those items have not been resolved, then 
tell us what's going to be used as the basis for decisions 
regarding the future nuclear weapons complex. Okay?
    Mr. Ostendorff. Yes, sir.
    Chairman Levin. Would you agree that if the RRW is 
feasible, that a new warhead for use in existing delivery 
systems--that it could be used for that purpose?
    Mr. Ostendorff. It's my understanding, Mr. Chairman, that 
the RRW concept studies and design definition studies which are 
underway right now, to date have demonstrated that they could 
achieve those characteristics and purposes.
    Chairman Levin. Could they then, if it is feasible, be 
usable in existing delivery systems?
    Mr. Ostendorff. It is my understanding that the Air Force 
and the Navy nuclear weapons directorates have reviewed the 
existing reentry vehicle technologies and have not determined 
that there would need to be any significant changes to the 
delivery platforms.
    Chairman Levin. Senator Thune, are you ready to go?
    Senator Thune. Yes, sir.
    Chairman Levin. Senator Thune.
    Senator Thune. Thank you. You look like you need a break.
    Chairman Levin. I don't want to hold you here, because I 
have a few more questions.
    Senator Thune. Okay.
    Chairman Levin. But I'm going to be here anyway, so let me 
call on you, if you're ready.
    Senator Thune. All right, thank you.
    I thank the panel for their willingness to serve. I just 
have a couple of questions I'd like to ask a couple of our 
nominees.
    First, for Dr. Casscells, in your advance policy questions, 
you state that TRICARE key performance measures have improved 
dramatically. Among those are claims processing and customer 
satisfaction. What I would like to share with you are some 
concerns I've heard from my constituents regarding TRICARE and 
customer satisfaction.
    South Dakota has approximately 7,000 military retirees who 
are TRICARE-eligible. On more than one occasion, constituents 
have indicated to me that health care providers are not 
accepting TRICARE because of the time it takes to process 
claims and because TRICARE is not reimbursing the health 
provider enough. If confirmed, can you inform the committee as 
to what steps you would take to improve the relationship 
between TRICARE and private health care providers?
    Dr. Casscells. Senator Thune, thank you. Yes, I have been 
looking into that as a TRICARE patient and as a TRICARE 
provider, not as a possible Assistant Secretary of Defense for 
Health Affairs. I have learned what I think most people have 
already come to understand, which is that the TRICARE contracts 
are not very generous financially to the providers. It is a 
little bit too onerous in signing up for them and maintaining 
them, given the relatively small number of patients that most 
doctors in most towns would have, or most hospitals. So, while 
I'm a TRICARE provider and patient, I'm at the University of 
Texas, where there's a big staff to negotiate these contracts 
and to help doctors with the regulations. The guys and gals in 
private practice throw up their hands when they get yet another 
complex contract. Some of them have said, ``It's more difficult 
than Medicare, and, heck, I have zillions of Medicare patients, 
but hardly any of TRICARE.'' So, we have to make it simpler, 
and, if confirmed, I would work to do that.
    In addition, sir, because the finances aren't so generous, 
it has to be cast in a light that people get recognition for 
taking on TRICARE patients. There has to be a sergeant or a 
general from the local National Guard to come by and present a 
plaque and to call the local newspaper and say, ``Thank heaven 
for some doctors who are willing to step up and help with 
TRICARE,'' because it is not the most remunerative, it's not 
the easiest, but it's a way that they can help the country. We 
need to recognize the doctors that way.
    Senator Thune. In a follow-up to that, one of the other 
concerns that I've heard is the lack of clarity of when and 
under what circumstances TRICARE is the primary payer. This is 
a confusing area, I think, of the health care industry, and 
especially for seniors, who may be carrying multiple policies 
and have multiple needs, like long-term care. Could you inform 
the committee, as well, of any steps you believe need to be 
taken to increase the level of education that TRICARE can 
provide to its beneficiaries so that this confusion that exists 
out there among those who are carrying multiple policies can be 
eliminated, or at least reduced?
    Dr. Casscells. Senator, I'm going to school on that, 
myself, now. I can say, again, just as a TRICARE patient and 
provider, that the Web site is getting better. The Joint 
Commission on Accreditation of Health Care Organizations has 
been happy with the way it's gone so far. The ratings tend to 
be higher than the average civilian hospital. But I'm sure we 
can do better, and I do think that from the military leaders 
I've spoken with, there is a commitment to do better in this 
regard. But, as to the details, I'm still going to school on 
them.
    Senator Thune. I hope that as you go through that, you can 
get some clarity and be able to communicate that with the many 
retirees who are using the program, because it does seem to be 
an issue on which there is great agreement that there is a lot 
of confusion and that there needs to be some better explanation 
of the various programs, particularly for seniors. Obviously, 
we're dealing with this on other issues, like Medicare Part D, 
as well. There is some confusion about the payer.
    I have a question for General Kicklighter, I'm coming back 
to the issue of health care--about the increasing cost of DOD 
health care and the Department's plan to pay for it. DOD 
statistics on total medical spending indicate a growth of $17.5 
billion in fiscal year 2000, to an estimated $39 billion in 
fiscal year 2007. I guess the question has to do with any 
thoughts that you might have about addressing what is a growing 
part of the DOD budget and any way that cost savings can be 
achieved in that. It's sort of endemic in health care 
generally, but that is a very substantial growth in one area of 
your budget over a relatively small period of time. So, any 
thoughts on that?
    General Kicklighter. Senator Thune, I don't know exactly 
what the health care capability is inside of the DOD's IG's 
office, but I certainly will take a look at what our skills 
are. If we don't have the skills we need to look at the growth 
of health care budgets, and what impact that is, and what care 
our recipients, both active and retired, are getting, I 
certainly would be glad to look into that, and would like to 
get back to you on that.
    [The information referred to follows:]

    If confirmed, I will review the skills sets within the DOD OIG and 
the associated oversight requirements regarding health care. Upon 
completion of my review, I will provide the committee with my 
conclusions and recommended actions.

    Senator Thune. I guess the reason I raise it is one of the 
suggestions of the problem has been increasing accountability 
and oversight for funds that get budgeted at the Department. I 
know that health care is a cost, in any organization right now, 
that is out of control. But if there are ways in which we can, 
through greater accountability and oversight help address that. 
We find that to be true in private health care, as well, that 
there sometimes is, in any government program, folks that 
figure out how to game the system. We want to make sure none of 
that's happening with regard to health care provided by the 
military.
    General Kicklighter. What I'd like to do, Senator, is to 
look into that, if confirmed, and get back to you as soon as I 
possibly can, in a very short period of time.
    Senator Thune. I appreciate that.
    Thank you all very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Thune.
    Mr. Ostendorff, over half of the nonproliferation program 
funding at NNSA is devoted to the mixed oxide (MOX) project 
which is aimed at turning 34 tons of excess weapons-grade 
plutonium into nuclear power reactor fuel. Several reports have 
indicated that the cost for the project has increased 
substantially. I'm wondering, if confirmed, whether you would 
look into the cost and the schedule for that program, and 
ensure that an independent cost estimate is available for the 
project.
    Mr. Ostendorff. Yes, sir, I will.
    Chairman Levin. Before construction activities begin for 
the MOX facilities, would you report back to the committee also 
on the status of the Russian companion effort to dispose of the 
same amount of excess weapons-grade plutonium?
    Mr. Ostendorff. Yes, sir.
    Chairman Levin. That winds up the questioning of members.
    We'll keep the record open for the usual length of time.
    Again, we want to thank you for your service. We want to 
thank your families. We particularly want to single out these 
younger kids who have sat here so patiently all morning long. I 
can't imagine, when I was their age, sitting still for as long 
as they have sat still. So, this new generation is not only 
computer literate, they are incredibly patient. I know their 
fathers, their grandfathers--are very grateful to them and all 
the family members for coming here again today.
    With that, we will stand adjourned.
    [Whereupon, at 11:31 a.m., the committee adjourned.]

    [Prepared questions submitted to LTG Claude M. Kicklighter, 
USA (Ret.), by Chairman Levin prior to the hearing with answers 
supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Having served in the Armed Forces before and after the 
Goldwater-Nichols Act, I have seen the very positive benefit of more 
civilian control. The Goldwater-Nichols Act greatly strengthened the 
role of the Joint Chief of Staff and greatly enhanced the warfighting 
ability of the combatant commanders through jointness. If confirmed, I 
would work with the Department and Congress to recommend policy for 
activities designed to promote combat readiness, economy, efficiency, 
and effectiveness in the future. At this time, I do not know of the 
need for any modifications to the act.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Please see response above.

                             QUALIFICATIONS

    Question. Section 3 of the Inspector General Act of 1978 provides 
that Inspectors General shall be appointed on the basis of their 
``integrity and demonstrated ability in accounting, auditing, financial 
analysis, law, management analysis, public administration, or 
investigations.'' What background and experience do you possess that 
you believe qualifies you to perform the duties of the Department of 
Defense (DOD) Inspector General (IG), particularly in the area of 
oversight, audit, and investigation?
    Answer. In a career of over 35 years of military service, followed 
by 15 years in the Senior Executive Service of the civil service, I 
have had extensive executive responsibility and experience working with 
issues related to public administration, management analysis, 
accounting, auditing, financial analysis, law, and investigation. I 
obtained a Masters of Management degree to further develop a number of 
these skills.
    I have learned what to expect from an IG in turns of their duties 
and responsibilities; my career has required that I maintain a close 
professional relationship with the IG in each military and civilian 
organization in which I have held senior management positions. I have 
been part of and led several high-level government investigations and 
have conducted numerous inspections intended to strengthen planning and 
implementation of policies, programs, and performance at the 
Departments of Defense, Veterans Affairs, and State.
    During my years of public service, I have gained a broad-based 
understanding of the functioning of DOD, in particular. I have made an 
enduring commitment to the welfare and development of its civilian and 
military personnel, and strive to set an appropriate example for them 
in my personal conduct, integrity, and loyalty.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform these duties?
    Answer. If confirmed, I plan to become more familiar with statutes 
and regulations applicable to government contracting in general and 
defense procurement, in particular. I also plan to meet with a broad 
cross-section of officials and personnel within DOD, including members 
of the Armed Forces here and overseas, to listen to their concerns and 
identify issues that might merit action by the Office of the Inspector 
General (OIG). Also, I plan to spend time listening to the concerns of 
the Members of Congress and their staffs.
    If confirmed, I plan to engage the members of the Defense Council 
on Integrity and Efficiency and the President's Council on Integrity 
and Efficiency to better understand their effective roles.
    I also intend to spend time with all elements of the DOD IG Office 
to learn and benefit from their invaluable grass roots level insights.
    Question. Based on your background and experience, are there any 
changes that you would recommend with respect to the current 
organization or responsibilities of the DOD IG?
    Answer. If confirmed, I plan to examine how the OIG is organized to 
determine if any structural changes in the office are appropriate. I 
also plan to determine whether the office is meeting the full range of 
its statutory responsibilities within the context of the resources 
available. It would be premature to offer any recommendations for 
change in these areas until I have an opportunity to conduct the 
necessary thorough evaluations.

                             RELATIONSHIPS

    Question. If confirmed, what would your working relationship be 
with:
    The Secretary of Defense.
    Answer. Section 8(c) of the act states that the IG shall ``be the 
principal adviser to the Secretary of Defense for matters relating to 
the prevention and detection of fraud, waste, and abuse in the programs 
and operations of the Department . . . .''
    If confirmed, I will seek to establish a strong and effective 
relationship with the Secretary of Defense that enables me to carry out 
my statutory duties with the independence required under the act, while 
enabling the Secretary to exercise his statutory supervisory authority. 
I will consult directly with the Secretary as necessary and 
appropriate, especially with respect to matters governed by section 
8(b)(1) of the act. I also expect to continue the current practice of 
providing weekly updates on ongoing issues to the special assistants 
for the Secretary of Defense and Deputy Secretary of Defense, monthly 
meetings with the Deputy Secretary of Defense, and quarterly briefings 
to the Under Secretaries on matters warranting their attention.
    Question. The Deputy Secretary of Defense.
    Answer. Section 3(a) of the Inspector General Act states that 
``each IG shall report to and be under the general supervision of the 
head of the establishment involved or, to the extent such authority is 
delegated, the officer next in rank below such head.'' DOD Directive 
5106.01, dated April 13, 2006, states that ``the IG of the DOD shall 
report to and be under the general supervision of the Secretary of 
Defense and the Deputy Secretary of Defense . . . .'' Accordingly, if 
confirmed, I would expect my relationship with the Deputy Secretary of 
Defense to almost mirror my relationship with the Secretary of Defense.
    Question. The Under Secretary of Defense (Comptroller/Chief 
Financial Officer) (USD(C/CFO).
    Answer. If confirmed, I will work with the USD(C/CFO) on areas of 
concern within the financial management arena which, I am told, the OIG 
has identified as a major management challenge for Department. I will 
conduct and supervise audits and investigations relating to the 
programs and operations of the establishment in order to promote 
economy, efficiency, and effectiveness. I would continue to work with 
the USD(C/CFO) to formulate the OIG's portion of the annual President's 
budget for submission to Office of the Secretary of Defense (OSD) and 
Office of Management and Budget (OMB), as well as request required 
resources to conduct the IG's mission.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics (USD(AT&L)).
    Answer. I am informed that the OIG has also identified acquisition 
processes and contract management as a major management challenge for 
DOD. It is therefore essential for the IG to maintain an effective 
working relationship with the USD(AT&L). If confirmed, I anticipate to 
work particularly closely with the Under Secretary concerning the 
allocation of OIG resources in the acquisition area, and how best to 
implement audit recommendations pertaining to acquisition processes.
    As IG, I would also recommend policies, in coordination with the 
USD(AT&L) and the USD(Comptroller), to ensure that audit oversight of 
contractor activities and financial management are coordinated and 
carried out in an efficient manner to prevent duplication.
    Question. The General Counsel of DOD.
    Answer. The OIG has extensive legal expertise and resources that 
are valuable to the OIG and, if confirmed, I will work as closely as 
possible with the Counsel without compromising, or creating the 
appearance of compromising, the independence of the OIG.
    It is my understanding that the former DOD Office of the Deputy 
General Counsel (Inspector General) was re-designated as the OIG Office 
of the General Counsel. The nine positions that comprise the office 
were transferred, with associated funding, from OSD to OIG. The OIG is 
the appointing authority for all personnel and is responsible for 
budgeting, personnel services, and other administrative support for the 
OIG Office of General Counsel.
    Question. The Director of Operational Test and Evaluation.
    Answer. I am advised that the IG and the Director of Operational 
Tests and Evaluation have a common interest in ensuring that equipment 
and weapons systems allocated to the warfighter perform effectively and 
as planned. If confirmed, I would expect to consult as appropriate with 
the Director concerning the initiation of oversight efforts in these 
areas.
    Question. The Inspectors General of the military departments, 
defense agencies, and the Joint Staff.
    Answer. Section 8(c)(2) of the act states that the IG of DOD 
``shall . . . initiate, conduct, and supervise such audits and 
investigations in the DOD (including the military departments) as the 
IG considers appropriate . . .'' Section 8(c)(9) adds that the IG 
``shall . . . give particular regard to the activities of the internal 
audit, inspection, and investigative units of the military departments 
with a view toward avoiding duplication and ensuring effective 
coordination and cooperation. . .''
    As I understand it, the DOD oversight community uses internal 
coordination mechanisms to de-conflict potential duplicative efforts. 
In addition, DOD directives implementing statute govern certain 
programs in which the Inspectors General of the military departments 
participate. If confirmed, I will ensure that the DOD IG continues to 
coordinate and avoid duplicative efforts and works as a team.
    Question. The Inspectors General of subordinate commands.
    Answer. My relationship with the Inspectors General of subordinate 
commands will be based on the OIG role described above in part G. If 
confirmed, I will work closely with the other DOD Inspectors General to 
carry out applicable policies and guidance; avoid duplication, 
overlapping, and gaps; and work to build a strong team.
    Question. The Criminal Investigative Services of the Military 
Departments.
    Answer. Under the act, the IG has the authority to initiate, 
conduct, and supervise criminal investigations relating to any and all 
programs and operations of the DOD. In addition, the IG is statutorily 
authorized to develop policy, monitor and evaluate program performance, 
and provide guidance regarding all criminal investigative programs 
within the Department. It is my understanding that the DOD IG works 
frequently in close coordination with the Military Criminal 
Investigative Organizations (MCIOs) on joint investigations.
    If confirmed, I will work closely with each of the MCIOs to ensure 
that investigative resources are used effectively.
    Question. The audit agencies of the military departments.
    Answer. Section 4(a) of the act establishes broad jurisdiction for 
the IG to conduct audits and investigations within DOD, and section 
8(c)(2) states that the IG ``shall . . .  initiate, conduct, and 
supervise such audits and investigations in the DOD (including the 
military departments) as the IG considers appropriate.''
    If confirmed, I will continue to work with the audit agencies of 
the military departments.
    Question. The Defense Contract Audit Agency (DCAA).
    Answer. If confirmed, I will continue to work with DCAA, as 
prescribed in the Inspector General Act. Although DCAA reports to the 
Under Secretary of Defense (Comptroller), it operates under audit 
policies established by the IG.
    Question. The Defense Acquisition Regulatory Council.
    Answer. As I understand it, the DOD OIG regularly provides comments 
to the Defense Acquisition Regulatory Council on proposed changes to 
the Defense Federal Acquisition Systems and also recommends changes as 
a result of DOD OIG work. If confirmed, I would expect to continue 
these practices.
    Question. The Director of Defense Procurement and Acquisition 
Policy.
    Answer. It is my understanding that the Director of Defense 
Procurement and Acquisition Policy is responsible for oversight of a 
large segment of the Defense Department's acquisition and contracting 
operations and, accordingly, is a major recipient of reports provided 
by the OIG. If confirmed, I would expect to continue the current 
practice of working with the Director.
    Question. The Comptroller General and the Government Accountability 
Office (GAO).
    Answer. It is my understanding the DOD OIG works very closely with 
the Comptroller General and the GAO to coordinate planned and ongoing 
audits and inspections to avoid any duplication of efforts. It is my 
further understanding that the DOD OIG also has a GAO affairs office 
that serves as the central liaison between GAO and DOD management 
during GAO reviews of DOD programs and activities. If confirmed, I 
would work to maintain this cooperative relationship between the 
Comptroller General and GAO.
    Question. The Special Inspector General for Iraq Reconstruction 
(SIGIR).
    Answer. It is my understanding that the DOD OIG has supported the 
operations of the SIGIR and its predecessor, the Coalition Provisional 
Authority (CPA) Inspector General. In accordance with the IG Act and 
Public Law 108-106, title 3, section 3001(f)(4), the DOD OIG 
coordinates activities with the SIGIR as well as other oversight 
community members, to avoid duplicating oversight efforts and to 
minimize disruption to military operations.
    As I also understand it, the DOD IG scope of oversight authority 
encompasses all DOD funded operations and activities in Iraq and the 
global war on terror, which today amounts to about $463 billion in 
supplemental appropriations. The SIGIR focuses his oversight effort 
only on funds designated for Iraq reconstruction, which has been 
appropriated at about $30 billion. If confirmed, and in keeping with 
the IG Act, I will work to ensure that the DOD OIG collaborates 
effectively with the SIGIR to ensure that we protect the public 
expenditures in Iraq for which we have oversight.
    Question. The President's Council on Integrity and Efficiency 
(PCIE).
    Answer. If confirmed, I plan to be a very active participant in the 
PCIE. As a Presidential-nominated and Senate-confirmed IG, the DOD IG 
is a member of the PCIE which meets on a monthly basis. It is my 
understanding that the DOD OIG currently serves on the PCIE Audit 
Committee and chairs the Information Technology Committee. I intend to 
participate fully and actively in the meetings of the PCIE and its 
committees.
    Question. The Defense Council on Integrity and Efficiency (DCIE).
    Answer. If confirmed, as its chairperson, I would organize meetings 
with the established members to discuss issues of common interest and 
reinforce close working relationships.
    Sections 2 and 3 of the DCIE Charter state that, in accordance with 
section 2(2) of the IG Act, the DOD IG, who is the DCIE Chairman, is 
responsible to provide ``leadership and coordination [in] activities 
designed: (A) to promote economy, efficiency, and effectiveness in the 
administration of;, and (B) to prevent and detect fraud and abuse in 
such programs and operations.''
    Question. The Office of Management and Budget.
    Answer. If confirmed, I will work with the Deputy Director for 
Management of the OMB, who is the Chairperson of the PCIE.

               MAJOR CHALLENGES, PROBLEMS, AND PRIORITIES

    Question. In your view, what are the major challenges and problems 
facing the next DOD IG?
    Answer. Currently, I do not have sufficient knowledge to respond to 
this question. However, if confirmed, it will be my top priority to 
learn what challenges and problems the DOD IG office needs to address 
and to ensure the adequacy of resources required to accomplish its 
mission.
    Question. If you are confirmed, what plans do you have for 
addressing these challenges and problems?
    Answer. If confirmed, I will focus audit, investigative, and 
inspection efforts on the challenges identified in the Semiannual 
Report, while working to identify new issues in consultation with 
senior DOD officials and Congress. I will also work with senior DOD IG 
officials to determine what additional resources the OIG may need to 
fulfill its statutory responsibilities.
    Question. If you are confirmed, what broad priorities would you 
establish in terms of issues which must be addressed by the DOD IG?
    Answer. It is difficult as a nominee to formulate priorities 
because I have not had access to the full range of information and 
considerations that should inform them. Promoting efficiency and 
preventing fraud in defense acquisitions will obviously be a high 
priority--as well as effective support for the men and women of our 
armed services serving in Iraq and Afghanistan. I will also ensure that 
the OIG pursues aggressive oversight of contracting issues. There 
undoubtedly are several other key matters that will merit 
prioritization. If confirmed, I look forward to consulting with senior 
officials of the DOD and OIG, and with Congress, in establishing broad 
priorities.
    Question. Are there any areas currently under investigation or 
review by the OIG which you do not believe are appropriate for 
investigation or review by the DOD IG? If so, why?
    Answer. I have no knowledge of any inappropriate areas at this 
time.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the DOD IG?
    Answer. The duties and functions of the IG of DOD are those 
specified in sections 3, 4, and 8 of the Inspector General Act of 1978, 
as amended. Additional duties and responsibilities of the IG are 
specified in DOD Directive No. 5106.01, which was signed by the Deputy 
Secretary of Defense on April 13, 2006.
    By statute, the IG conducts and supervises audits and 
investigations relating to the programs and operations of DOD. The IG 
also provides leadership and coordination, and recommends policy, for 
activities designed to: (1) promote economy, efficiency, and 
effectiveness in the administration of DOD programs and operations; and 
(2) combat fraud, waste, and abuse. In addition, the IG is responsible 
for keeping both the Secretary of Defense and Congress fully and 
currently informed about problems and deficiencies in defense programs, 
the need for corrective action, and the status of such action.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense would prescribe for you?
    Answer. If confirmed, I expect that the Secretary of Defense will 
prescribe for me the full range of duties and functions set forth in 
the Inspector General Act, as amended, as well as the additional duties 
and responsibilities specified in DOD Directive No. 5106.01. I also 
anticipate he will provide specific areas that he is concerned about 
and would like reviewed. I believe he would also expect for me to 
protect the independence and objectivity of the office.
    Question. Section 2 of the Inspector General Act of 1978 states 
that its purpose is to create independent and objective units to 
conduct and supervise audits and investigations; to provide leadership 
and coordination and recommend policies designed to promote economy, 
efficiency, and effectiveness; to prevent and detect fraud and abuse; 
and to provide a means for keeping Congress and agency heads fully and 
currently informed about problems and deficiencies relating to the 
administration of programs and operations and the necessity for and 
progress of corrective action.
    Are you committed to maintaining the independence of the DOD IG, as 
set forth in the IG statute?
    Answer. If confirmed, I will maintain the independence of the OIG 
consistent with the provisions of the IG Act.
    Question. Are you committed to keeping the Committee on Armed 
Services ``fully and currently informed,'' and, if so, what steps will 
you take, if confirmed, to ensure that this responsibility is carried 
out?
    Answer. Yes. If confirmed, in accordance with section 2(3) of the 
act, I will be committed to keeping the Committee on Armed Services 
``fully and currently informed about problems and deficiencies relating 
to the administration of such programs and operations and the necessity 
for and progress corrective action.'' I will do so through the 
dissemination of OIG products such as the Semiannual Report to Congress 
and audit reports. In addition, I will provide briefings for Members 
and staff, and testimony at hearings, when requested, with the intent 
of maintaining a close relationship.
    Question. Section 3 of the Inspector General Act of 1978 provides 
that the head of an agency shall exercise ``general supervision'' over 
an IG, but shall not ``prevent or prohibit the IG from initiating, 
carrying out, or completing any audit or investigation, or from issuing 
any subpoena during the course of any audit or investigation.''
    What is your understanding of the supervisory authority of the 
Secretary of Defense over the DOD IG with respect to audits and 
investigations, in view of the independence provided by sections 2 and 
3?
    Answer. Section 2 of the act creates independent and objective 
units . . . to provide a means for keeping the head of the 
establishment and Congress fully and currently informed about problems 
and deficiencies relating to the administration of such programs and 
operations and the necessity for and progress of corrective action. 
Section 3 states that each IG shall report to and be under the general 
supervision of the head of the establishment involved or, to the extent 
such authority is delegated, to the office next in rank below such 
head, but shall not report, or be subject to supervision by, any other 
officer of such establishment. Moreover, neither the head of the 
establishment nor the office next in rank shall prevent or prohibit the 
IG from initiating, carrying out, or completing any audit or 
investigation, or from issuing any subpoena during the course of any 
audit or investigation.
    Question. If confirmed, what action would you take if a senior 
official of the Department sought to prevent you from ``initiating, 
carrying out, or completing'' any audit or investigation within the 
jurisdiction of the OIG?
    Answer. If the action was taken outside the authority given to the 
Secretary of Defense in section 8 of the IG Act, I would notify the 
Secretary and request his assistance in ensuring compliance with the IG 
Act by the senior official involved. Failure to resolve the issue, 
would, in my view, constitute a ``particularly serious or flagrant 
problem, abuse, or deficiency'' under section 5(d) of the IG Act. Under 
this section, the IG is required to report the matter to the head of 
the establishment, who is then required to transmit the IG's report to 
Congress within 7 days.
    Question. Section 8 of the Inspector General Act of 1978 states 
that the DOD IG shall ``be under the authority, direction, and control 
of the Secretary of Defense with respect to certain audits or 
investigations which require access to information concerning sensitive 
operational plans, intelligence matters, counterintelligence matters, 
ongoing criminal investigations by other administrative units of the 
DOD related to national security, or other matters, the disclosure of 
which, would constitute a serious threat to national security.
    What is your understanding of the procedures in place to effect the 
authority and control of the Secretary of Defense over matters 
delineated in section 8 of the act?
    Answer. To my knowledge the procedure in place is to follow the IG 
Act of 1978. Under 8(b)(1) or 8(b)(2) of the Inspector General Act, the 
Secretary has the ``authority to stop any investigation, audit, or 
issuance of subpoenas, if the Secretary determines that such a 
prohibition is necessary to preserve the national security interests of 
the United States.'' I am informed that this provision has never been 
exercised. However, in the event that the Secretary exercises this 
authority, I would submit an appropriate statement within 30 days to 
this committee and other appropriate committees of Congress, as 
required under section 8(b)(3).
    Question. What is your understanding of the extent to which the IG 
has, as a matter of practice, initiated and conducted audits or 
investigations covered by section 8 differently from other audits or 
investigations?
    Answer. It is my understanding that the practice of the DOD IG with 
respect to the initiation and conduct of audits and investigations 
covered by section 8 is the same as for other audits and 
investigations.
    Question. What changes, if any, do you believe are needed in the 
practices of the DOD IG for initiating and conducting audits or 
investigations covered by section 8?
    Answer. None to my knowledge.
    Question. Sections 4 and 8 of the Inspector General Act of 1978 set 
forth various duties and responsibilities of IGs beyond the conduct of 
audits and investigations.
    What is your understanding of the supervisory authority exercised 
by the Secretary of Defense with regard to these issues?
    Answer. Beyond the conduct of audits and investigations, section 4 
directs the IG to ``review existing and proposed legislation and 
regulations'' and make related recommendations in semiannual reports; 
recommend policies to promote economy and efficiency in the 
administration of Department programs and operations, and to prevent 
and detect fraud and abuse; keep the Secretary of Defense and Congress 
fully and currently informed about fraud and other serious problems, 
abuses, and deficiencies; recommend corrective actions for such 
problems, abuses, and deficiencies; and report on the progress made in 
implementing such corrective actions. Section 8(c)(1) adds that the IG 
shall ``be the principal advisor to the Secretary of Defense for 
matters relating to the preventing and detection of fraud, waste, and 
abuse.
    It is my understanding that the operations above specified in 
sections 4 and 8 come within the general supervisory authority of the 
Secretary of Defense established under section 3(a).

                              INDEPENDENCE

    Question. The DOD IG must ensure that the independence of the OIG 
is maintained, that investigations are unbiased, particularly those 
involving senior military and civilian officials, and promptly and 
thoroughly completed, and that the highest standards of ethical conduct 
are maintained.
    Based on your background and work experience, are there any matters 
currently under investigation or review by the DOD IG from which you 
may be required to recuse yourself if confirmed? If so, why?
    Answer. None to my knowledge.
    Question. What is your understanding of the methods currently in 
place to address incidents of alleged misconduct by the DOD IG? Do you 
believe that these methods are adequate?
    Answer. It is my understanding the PCIE Integrity Committee, 
chaired by a representative from the Federal Bureau of Investigation, 
has been established to ensure that administrative allegations against 
IGs and certain staff members of the OIGs are appropriately and 
expeditiously investigated and resolved. The results of Integrity 
Committee investigations are provided to the Chair of the PCIE who may 
forward the findings to the IGs agency head. The agency head is 
required to respond to the Integrity Committee within 30 days regarding 
the actions taken or planned to be taken in response to the 
investigative findings. I also note that the President has the 
authority to remove an IG.
    To the best of my knowledge, these methods are adequate. I believe 
this process, if properly applied, can be an effective means to 
investigate alleged misconduct by IGs. However, I have not reviewed 
specific cases referred to the Integrity Committee to determine if 
those procedures are working effectively.
    Question. Under what circumstances, if any, do you believe it would 
be appropriate for the DOD IG to consult with officials in the OSD (or 
other DOD officials outside the OIG) before issuing a report, regarding 
the findings and recommendations in the report?
    Answer. In regards to audits, inspections, senior official 
investigations, and reprisal investigations, it is the current practice 
for the OIG to consult with officials in the OSD, or other DOD 
officials before issuing a report to ensure that the information in the 
report is factually accurate and to resolve or minimize disagreements 
on conclusions, findings, and recommendations. However, for criminal 
investigations, it is not appropriate to discuss the results of ongoing 
investigations.
    Question. To the extent that you believe such consultation is 
appropriate, what steps, if any, do you believe the IG should take to 
keep a record of the consultation and record the results in the text of 
the report?
    Answer. I believe it is necessary to consult with all parties to 
gather the facts to develop findings and recommendations. I am advised 
that the facts that are relevant should be included in the text of the 
report. A written record of all interviews and consultations are 
maintained in the working papers. The procedures are in place to redact 
certain information from reports in the appropriate circumstances.
    Question. Under what circumstances, if any, do you believe it would 
be appropriate for senior officials to request that the DOD IG not 
investigate or review a particular matter?
    Answer. Under section 8 of the Inspector General Act, the Secretary 
of Defense has the authority to prohibit the IG from initiating, 
carrying out, or completing any audit or investigation. That authority 
may be exercised when the audit or investigation requires access to 
information concerning: sensitive operational plans, intelligence 
matters, counterintelligence matters, ongoing criminal investigations 
by other administrative units of DOD related to national security, or 
other matters the disclosure of which would constitute a serious threat 
to national security. As noted previously, the Secretary of Defense has 
never exercised his authority under section 8.
    Question. Under what circumstances, if any, do you believe it would 
be appropriate for senior officials to request that the DOD IG not 
issue a report on a particular matter?
    Answer. No one has the authority to ask the DOD IG not to issue a 
report on a particular matter unless it is the Secretary of Defense, 
under the provisions delineated in section 8.
    Question. Under what circumstances, if any, do you believe it would 
be appropriate for senior officials to request that the DOD IG alter 
findings, recommendations, or other pertinent material in a report on a 
particular matter?
    Answer. In the course of conducting audits, inspections, and senior 
official investigations, the OIG practice is to consult with officials 
in the OSD, or with other senior level DOD officials, before issuing a 
report to ensure that the information in the report is factually 
accurate and to resolve or minimize disagreements where appropriate. 
However, for criminal investigations, it is not appropriate to discuss 
the results of ongoing investigations. The final decision on the 
content of reports rests with the IG.
    Question. If confirmed, how would you react to a request, which you 
believed to be inappropriate, to not investigate a particular matter, 
not issue a report on a particular matter, or alter findings, 
recommendations, or other pertinent material in a report on a 
particular matter?
    Answer. With respect to the initiation or completion of an audit or 
investigation, if the request was inappropriate and made outside the 
authority given to the Secretary of Defense in section 8 of the IG Act, 
I would reject the proposal. If and when necessary, I would notify the 
Secretary and request his assistance in ensuring compliance with the IG 
Act by the senior official involved.
    Failure to resolve the issue, would, in my view, constitute a 
``particularly serious or flagrant problem, abuse or deficiency'' under 
section 5(d) of the IG Act. Under this section, the IG is required to 
report the matter to the head of the establishment, who is then 
required to transmit the IG's report to Congress.
    Question. What is your understanding of the corrective measures 
that were taken by the OIG in response to the report of the independent 
assessment team tasked by the DOD IG in 2002 to evaluate the overall 
effectiveness of the Office?
    Answer. I know of the report and have read the Executive Summary. 
If confirmed, I plan to review the report and the response in detail 
and determine if corrective action were appropriate and effective.
    Question. Do you believe that these corrective actions were 
appropriate and effective?
    Answer. Please see my response to the previous question.
    Question. What is your view of the professionalism and expertise of 
the career staff of the OIG?
    Answer. During the briefings I have received, I have found the 
staff at the DOD IG to be knowledgeable and professional.
    Question. What relationship, if any, do you see between the career 
staff of the OIG and the independence of the Office?
    Answer. The credibility and effectiveness of IGs require a well-
trained and professional staff that is aware of the agency's unique 
role and whose conduct and work products will be accepted as both 
independent and objective.
    Question. What role, if any, do you believe that the senior 
leadership of the DOD should play in personnel decisions within the 
OIG?
    Answer. In personnel matters, section 6 of the IG Act provides the 
IG the authority to ``select, appoint, and employ such officers and 
employees as may be necessary for carrying out the functions, powers, 
and duties'' of his office.
    Question. The OIG currently relies upon legal advice provided by 
the DOD Office of General Counsel. The Inspectors General of many other 
Federal agencies have their own lawyers. Do you believe that reliance 
on the legal advice of the DOD Office of General Counsel has the 
potential to compromise the independence of the OIG?
    Answer. I would expect to work with the DOD General Counsel on a 
variety of matters. However, I would rely on the OIG General Counsel 
legal advice for internal work products and processes.
    Please also see my answer to the earlier question concerning the 
relationship with the DOD General Counsel. See section G of 
Relationships.

                         CONGRESSIONAL REQUESTS

    Question. The OIG frequently receives requests from congressional 
committees and Members of Congress for audits and investigation of 
matters of public interest.
    What is your understanding of the manner in which the OIG handles 
such requests?
    Answer. It is my understanding that the DOD IG receives many 
requests from congressional committees and Members of Congress for 
oversight reviews, but adheres to the same principles of independence 
in responding to those requests.
    Question. If confirmed, will you ensure that the OIG continues to 
respond to congressional requests for audits or investigations in a 
manner consistent with past practice?
    Answer. Yes.
    Question. Under what circumstances, if any, do you believe it would 
be appropriate for the OIG to redact the contents of any information 
contained in a report it provides to Congress?
    Answer. It is my understanding that consistent with the Freedom of 
Information Act (FOIA), the practice of the DOD IG is to provide 
unredacted copies of reports to oversight committees of Congress. The 
DOD IG redacts information in reports released to the public in 
accordance with the FOIA and the Privacy Act.

                     SENIOR OFFICIAL INVESTIGATIONS

    Question. The OIG plays a key role in the investigation of 
allegations of misconduct by senior officers and civilian employees of 
the DOD. The Committee on Armed Services has a particular interest in 
investigations concerning senior officials who are subject to Senate 
confirmation, and relies upon the DOD IG, as well as the OSD, to ensure 
that these investigations are accurate, complete, and accomplished in a 
timely manner.
    If confirmed, what steps will you take to ensure that the 
investigations relating to senior officials are completed in a timely 
manner and that the results of investigations are promptly provided to 
this committee?
    Answer. If confirmed, I will ensure that the investigations 
relating to senior officials to include those who are subject to Senate 
confirmation are completed in a timely manner and that the results of 
investigations are promptly provided to the committee.
    Question. Do you believe that the current allocation of 
responsibilities between the DOD IG and the IGs of the military 
departments is appropriate to ensure fair and impartial investigations?
    Answer. If confirmed, I will ensure that the current allocation of 
responsibilities between the DOD IG and the IGs of the military 
departments is appropriate to ensure fair and impartial investigations.
   resources and authorities of the dod ig's office and investigators
    Question. Do you believe that the DOD IG's office has sufficient 
resources (in personnel and dollars) to carry out its audit and 
investigative responsibilities?
    Answer. If confirmed, I will attempt to ensure that the DOD IG's 
office has sufficient resources to carry out its audit and 
investigative responsibilities.
    Question. If confirmed, will you communicate any concerns that you 
may have about the adequacy of resources available to the OIG to 
Congress and this committee?
    Answer. If confirmed, I will.
    Question. Some Federal agencies have reacted to limited IG 
resources by using contractors to perform some audit and investigative 
functions.
    What is your understanding of the DOD IG's role in determining 
whether the use of contractor resources to perform audit or 
investigative functions is appropriate?
    Answer. For the audit function, the Inspector General Act, section 
4(b)(1)(B) establishes the authority of each IG to establish guidelines 
for determining when it shall be appropriate to use non-Federal 
auditors. In addition, section 4(b)(1)(C) of the act states that the IG 
shall take appropriate steps to ensure that any work performed by non-
Federal auditors complies with the standards established by the 
Comptroller General.
    With regard to the criminal investigative function, it is 
considered inherently governmental and therefore contractors do not 
perform such functions.
    Question. Under what circumstances, if any, do you believe that the 
use of contractor resources to perform such functions would be 
appropriate?
    Answer. It is my understanding that there is specific guidance in 
DOD Directive 7600.2 on when it is permissible to use contractor 
resources to perform audit functions. It specifically permits DOD 
components to contract for audit services when applicable expertise is 
unavailable, if augmentation of the audit staff is necessary to execute 
the annual audit plan, or because temporary audit assistance is 
required to meet audit reporting requirements mandated by Public Law or 
DOD regulation. However, the directive includes an approval process to 
ensure the appropriate use of non-Federal auditors and that they comply 
with the Government Auditing Standards issued by the Comptroller 
General of the United States.
    Question. In recent years, the DOD IG has sought and obtained 
increased authority to issue subpoenas, carry weapons, and make 
arrests.
    Do you believe that the authorities of the OIG and its agents are 
adequate in these areas, or would you recommend further changes in the 
law?
    Answer. If confirmed, I will review the IGs current authorities for 
adequacy.

                  DOD FINANCIAL ACCOUNTING AND AUDITS

    Question. The performance of mandatory statutory duties, such as 
the performance of financial audits, has consumed a growing share of 
the resources of the IG's office, crowding out other important audit 
priorities.
    What is your view of the relative priority of financial audits, and 
the resources that should be devoted to such audits?
    Answer. Financial audits will continue to be a high priority 
consistent with the President's Management Agenda Initiative, the 
Secretary of Defense's top priorities, the Chief Financial Officers Act 
of 1990, and the Federal Financial Management Improvement Act of 1994. 
It is my understanding that the OIG has received sufficient resources 
to conduct financial statement audits under the current departmental 
approach. However, as the Department improves audit readiness and the 
requirements for financial statement audits increase, a reevaluation 
may be necessary. If confirmed, I will work with the Department and 
Congress to ensure that the appropriate level of resources continues to 
be dedicated to financial audits. I will also seek to ensure that 
resources committed to financial audits do not come at the expense of 
other audit priorities.
    Question. Do you believe that resources currently directed to the 
audit of financial statements that are generally acknowledged to be 
unreliable would better be directed to other objectives?
    Answer. Without the benefit of first hand knowledge of resource 
challenges faced by the DOD IG, I am not currently in a position to 
determine whether resources would be better directed to other 
objectives.
    Question. Do you see any need for legislative changes to give the 
IG greater flexibility to target audit resources?
    Answer. If confirmed, I am prepared to work with the Department and 
Congress to assess whether legislation in this area is appropriate.
    Question. What is your view of the role of the DOD IG in evaluating 
and contributing to improvements made in the Department's financial 
management processes?
    Answer. The role of the DOD OIG is to serve as a catalyst for 
improvements in the Department's financial management processes. That 
role should be consistent with the President's Management Agenda 
Initiatives, the Department's top priorities, and statutory 
requirements. If confirmed, I will ensure that the DOD OIG continues 
this vital function.

                   OVERSIGHT OF ACQUISITION PROGRAMS

    Question. Problems with procurement, acquisition, and the ability 
of the Department and the military departments to effectively oversee 
acquisition programs have called into question the capability of 
existing DOD oversight mechanisms.
    What are your views on the need for reform in how the DOD procures 
property and services?
    Answer. I am informed that recent IG audit reports have identified 
contracting and acquisition problems and that the auditors are working 
with DOD management to correct those problems. If confirmed, I will 
work with the Department to address ways to improve acquisition 
procedures.
    Question. What role, if any, do you believe the OIG should play in 
achieving acquisition reform?
    Answer. The role of the DOD OIG is to serve as a catalyst for 
improvements in the Department's acquisition processes and contract 
management. That role should be consistent with the President's 
Management Agenda Initiatives, the Department's top priorities, and 
statutory requirements. If confirmed, I will ensure that the DOD OIG 
continues this vital function.
    Question. Do you believe that the DOD IG and the various Defense 
auditing and contracting management activities have the resources 
needed to conduct effective oversight over the Department's acquisition 
programs?
    Answer. If confirmed, conducting effective oversight over the 
Department's acquisition programs will be among our top priorities in 
the IG office. The men and women of our Armed Forces, and our Nation's 
taxpayers, have a right to expect that the funds appropriated by 
Congress for defense acquisitions are being utilized with cost-
efficiency and integrity.
    Based on the information made available to me thus far, I am 
concerned that the audit resources of the OIG have not kept pace with 
the growth in contract expenditures for defense acquisitions. I am also 
concerned that the current trend, if unchecked, will significantly 
increase the risk of fraud, waste, and abuse in acquisition programs.
    Therefore, if I am confirmed, it will be vital for the OIG, the 
Department, and Congress to work together in a timely way to assess 
whether the OIG has adequate resources to conduct this essential 
oversight.
    Question. Over the last 15 years, the DOD IG has gone from having 
one auditor for every $500 million on contract by the DOD to one 
auditor for every $2 billion on contract.
    Do you believe that the DOD IG has the resources it needs to 
conduct effective oversight over the Department's acquisition programs?
    Answer. If confirmed, I am prepared to work with the Department and 
Congress to assess whether the OIG has adequate resources to conduct 
this essential oversight.
    Question. The DOD IG has played an important role in advising the 
DOD and Congress on the sufficiency of management controls in the 
Department's acquisition programs and the impact that legislative and 
regulatory proposals could have on such management controls.
    How do you see the DOD IG's role in this area?
    Answer. The DOD IG has an important role in helping the Department 
to effectively and efficiently manage acquisition resources dedicated 
to the support of the Department's mission, and in accounting for the 
management of those resources to the taxpayer. If confirmed, I will 
ensure that the DOD OIG continues its important advisory role.

                           HUMAN TRAFFICKING

    Question. The DOD has adopted a ``zero tolerance'' position against 
abuses of human trafficking and modified its policies to ensure that 
United States military commands and activities and their personnel are 
informed about factors contributing to human trafficking and take 
preventative measures against behavior that contributes to this 
problem. The DOD IG has investigated allegations of human trafficking 
in Korea and the Balkans, and posted a survey on its Web site designed 
to obtain information about potential human trafficking abuses from DOD 
personnel.
    What is the role of the DOD IG with respect to human trafficking?
    Answer. It is my understanding that the IG strongly supports the 
Department's ``zero tolerance'' policy against human trafficking by 
evaluating programs and compliance, and by investigating allegations of 
human trafficking that have a DOD nexus. Over the last 2\1/2\ years, 
the DOD IG has been called upon to testify before Congress three times 
and has also addressed international forums on its efforts regarding 
trafficking in persons.
    Question. What is your understanding of the actions that have been 
taken by the OIG to prevent human trafficking abuses and the current 
role of the DOD IG in formulating and enforcing the Department's 
policies?
    Answer. As referenced above, it is my understanding that the OIG 
has evaluated DOD programs and compliance in Korea, Bosnia, and Kosovo.
    On November 21, 2006, the OIG published its report titled 
``Evaluation of the DOD Efforts to Combat Trafficking in Persons.'' The 
objective of the evaluation was to determine if DOD Directives, 
implementing instructions, organization, metrics, and resources were 
adequate for the DOD components to develop implementing programs. The 
report made 14 major recommendations in the areas of coordination, 
training, policy, and metrics. It is my understanding that the 
Department published DOD Instruction 2200.01, ``Combating Trafficking 
in Persons,'' on February 16, 2007, incorporating recommendations from 
the November 2006 DOD IG report. It is my further understanding that it 
is the responsibility of DOD management to formulate and enforce 
policies regarding trafficking in persons.
    It is my understanding that the DOD IG continues to encourage use 
of the Defense Hotline to report human trafficking abuses. In October 
2004, the OIG distributed over 17,000 Defense Hotline ``Trafficking in 
Persons'' (TIP) posters to military and DOD civilian activities 
worldwide.
    Question. In April 2006, the Commander, U.S. Multinational Forces, 
issued an order titled ``Prevention of Trafficking in Persons in MNF-
I,'' aimed at preventing human trafficking abuses by contractors 
involving possibly thousands of foreign workers on U.S. bases in Iraq. 
Media reports about the problem of abuses in Iraq among contractors 
stated that allegations had been raised as early as 2004 with the DOD 
IG, but that lengthy delays occurred before a response.
    What is your understanding of the role the DOD IG has played in 
investigating human trafficking allegations in Iraq?
    Answer. It is my understanding that the OIG has worked closely with 
other human trafficking ``stakeholders'' within the DOD, and with other 
executive departments such as the Department of State. I also 
understand that the IG conducted an inquiry, based on a February 2006 
request from the Under Secretary of Defense for Personnel and Readiness 
(USD(P&R)), that reviewed allegations of involuntary servitude 
occurring under the auspices of DOD contractors in Iraq. In its 
response to USD(P&R) in April 2006, the OIG concluded that it did not 
have the authority to investigate foreign nations or foreign companies 
inside countries which are the sources of laborers. Based on its 
review, the IG made several recommendations:

        <bullet> DOD should continue to prosecute military members who 
        become involved in TIP or TIP-related activities, in accordance 
        with the Uniform Code of Military Justice.
        <bullet> DOD should ensure that all new contracts incorporate 
        the anti-TIP clause required by a proposed change to the 
        Defense Federal Acquisition Regulation (DFAR), once it is 
        approved.
        <bullet> DOD should evaluate rewriting existing contracts to 
        incorporate the language of the anti-TIP DFAR clause, once it 
        is approved.
        <bullet> Military department and combatant command IGs should 
        continue their involvement in DOD efforts to combat TIP, within 
        the limits of their authority.

    The DOD IG supported changes to the DFAR to provide additional 
controls regarding TIP for DOD contracts performed outside of the 
United States. It is my understanding that an interim rule implementing 
the change to the DFAR was published in October 2006.
    Question. What steps would you take, if confirmed as the DOD IG, to 
investigate and prevent the incidence of human trafficking abuses in 
connection with DOD activities?
    Answer. If confirmed, I would promote compliance with the DOD 
``zero tolerance'' policy by periodically evaluating DOD programs to 
combat human trafficking in coordination with other IGs throughout the 
Department.

          OVERSIGHT OF DOD ACTIVITIES IN IRAQ AND AFGHANISTAN

    Question. What is the relationship of the DOD IG to the SIGIR?
    Answer. It is my understanding that the DOD OIG has supported the 
operations of the SIGIR and its predecessor, the CPA Inspector General. 
In accordance with the IG Act and Public Law 108-106, title 3, section 
3001(f)(4), the DOD OIG coordinates activities with the SIGIR as well 
as other oversight community members, to avoid duplicating oversight 
efforts and to minimize disruption to military operations. See Section 
O in Relationships.
    Question. What is your understanding of the responsibilities and 
activities of the OIG in investigating and preventing fraud, waste, and 
abuse of U.S.-provided resources for reconstruction and other purposes 
in Iraq?
    Answer. I am informed that the DOD OIG has, in accordance with its 
legislatively mandated mission, conducted audits aimed at identifying 
and preventing fraud, waste, and abuse of funds appropriated to the DOD 
for its operations in Iraq. It is my further understanding that the DOD 
OIG has established a forward operating element at Camp Victory in 
Baghdad. The DOD OIG has also established an office in Qatar as an in-
theater base of operations. The staff in the Qatar office conducts 
audits as required in Iraq, Afghanistan, Kuwait, and Qatar to support 
the operational commander. Additionally, audits are also being 
conducted in the continental United States (CONUS) on contracts awarded 
and funds expended in the United States that provide significant 
resources to support reconstruction and other purposes in Iraq.
    I am advised that DCIS and its military criminal investigative 
counterparts, in particular the U.S. Army Criminal Investigative 
Command (Army CID), investigate major frauds, corruption, thefts, and 
other compromises of DOD assets in Afghanistan, Iraq, and other 
countries in that theater. Four DCIS agents are currently deployed to 
Iraq and Kuwait, collocated with Army CID, to conduct operations and 
investigations that primarily involve procurement fraud and public 
corruption. In addition, the DCIS European office and DCIS CONUS 
offices, along with the investigative partners (e.g., FBI), continue to 
investigate Iraq-related matters and travel into theater to conduct 
investigative operations, such as gathering evidence and conducting 
interviews, when crimes are reported. However, the bulk of DCIS's 
investigative activities occur in CONUS where corporate headquarters of 
DOD contractors, key evidence, and Department of Justice prosecutorial 
support are located.
    Also, I have been informed that DCIS is a participant in the 
International Contract Corruption Task Force, a formalized partnership 
between Federal agencies to investigate and prosecute cases of contract 
fraud and public corruption related to U.S. spending in Iraq. The Task 
Force has established a Joint Operations Center specifically to 
formally coordinate investigations and develop a criminal intelligence 
capability to successfully prosecute fraud. It is my understanding that 
DCIS has dedicated a special agent to the Joint Operations Center on a 
full-time basis.
    If confirmed, and in keeping with the IG Act, I will ensure that 
the DOD OIG continues to focus oversight efforts to investigate and 
prevent fraud, waste, and abuse of U.S.-provided resources for 
reconstruction and other purposes in Iraq.
    Question. What is your understanding of the responsibilities and 
activities of the OIG in investigating and preventing fraud, waste, and 
abuse of U.S.-provided resources for reconstruction and other purposes 
in Afghanistan?
    Answer. It is my understanding that DOD IG is responsible for 
investigating fraud, waste, and abuse for funds appropriated to DOD for 
its operations in Afghanistan. It is my further understanding that the 
DOD OIG is initiating efforts to establish a forward deployed presence 
in Afghanistan. The DOD OIG has established an office in Qatar as an 
in-theater base of operations. Pursuant to the tenets of the IG Act, I 
would ensure the DOD oversight efforts were coordinated with other 
organizations conducting oversight in Afghanistan.
    Question. If confirmed, what changes, if any, would you plan to 
make to the DOD IG's oversight activities in Iraq and Afghanistan?
    Answer. If confirmed, I would ensure that DOD IG activities in Iraq 
and Afghanistan remain as a top priority. I will also want to assess 
the current level of oversight to ensure that adequate resources are 
being devoted to this mission and that those resources are being 
allocated appropriately.
    Question. If confirmed, what would be your goals with respect to 
the oversight, audit, and investigation of ongoing U.S. activities in 
Iraq and Afghanistan?
    Answer. If confirmed, it is my goal to ensure that the oversight 
provided by the DOD IG of ongoing DOD activities in Iraq and 
Afghanistan is consistent with the responsibilities contained in the IG 
Act and is sufficient to provide assurance to Congress, the Secretary 
of Defense, and to both the American taxpayer and the warfighter that 
funds supporting DOD activities are expended appropriately and 
effectively.
    Question. The SIGIR has jurisdiction over contracts for the 
reconstruction of Iraq, however, the Special IG does not have 
jurisdiction over contracts to support our troops in Iraq and 
Afghanistan. What role do you believe the DOD IG should play in the 
oversight, audit, and investigation of such contracts?
    Answer. The DOD IG office should have an active role in ensuring 
stewardship of taxpayers' dollars and effective contract support for 
our troops through diligent oversight of the contracting function. This 
would include audits, inspections, and investigations, as required.
    Question. Do you believe that a significant on-the-ground presence 
in Iraq is necessary to perform this role?
    Answer. As noted earlier, the DOD OIG has established an office in 
Qatar as its in-theater base of operations for entry into Iraq as well 
as Afghanistan and Kuwait. Additionally, the OIG has established a 
forward operating presence at Camp Victory in Baghdad, and is in the 
process of initiating efforts to establish a forward deployed presence 
in Afghanistan.
    Question. You have served as director of the Iraq-Afghanistan Joint 
Transition Planning Group and a special adviser to the State Department 
on stabilization and security operations in Iraq and Afghanistan, and 
Director of the DOD's Iraq Transition Team.
    Please describe the role that you have played in U.S. 
reconstruction activities in Iraq and Afghanistan.
    Answer. As Director of the Defense Department's Iraq Transition 
Team, I served as part of a joint team with the Department of State to 
develop a plan for closing down the CPA and standing-up the U.S. 
Mission in Baghdad. We focused on two reconstruction objectives: (1) 
transforming CPA's Reconstruction Project Management Office into the 
State Department-run Iraq Reconstruction Management Office; (2) 
establishing initial requirements for Provincial Reconstruction Teams 
(PRTs) in Iraq with respect to staffing, location, and security.
    As Special Advisor to the State Department on Stabilization and 
Security, the office looked at the structure, location, and security of 
PRTs in Afghanistan and also recommended that the U.S. Army Corps of 
Engineers increase its support for U.S. Agency for International 
Development's reconstruction effort in that country. With the departure 
of the Secretary and Deputy Secretary of State our mission was ended, 
and we did not have the time to focus on Iraq.
    The Iraq/Afghanistan Transition Planning Group (IATPG), for which I 
am Director, focused on assessing planning coordination of U.S. 
Government activities in these two countries, as directed by the 
Secretaries of State and Defense. In the specific area of 
reconstruction, we provided an assessment of PRTs in Afghanistan and 
made recommendations for improvement in the areas of planning, 
integration of effort, and staffing.
    Question. What is your view of the major successes of those 
efforts?
    Answer. Standing up the U.S. Embassy, Baghdad, and closing out the 
CPA was accomplished on time and was successful in establishing the 
initial framework for integration of our diplomatic and military 
activities. It also provided the foundation for the development of the 
PRT program initiative in Iraq. In Afghanistan, the IATPG advanced the 
planning and evolution of the PRT effort, with special emphasis on the 
merging of the U.S. PRT initiative with that of the International 
Security Assistance Force.
    Question. What is your view of the major failures of those efforts?
    Answer. We should have pushed harder and sooner to combine police 
and military training in a strong State and Defense Department 
partnership in both countries. In the early stages of a 
counterinsurgency war, when the police have to have both police and 
paramilitary skills to be effective, I believe that DOD should have the 
lead role in training the police and the military, as is the case 
currently. When the situation is more permissive, then the lead can be 
shifted. In any event, DOD, State, and Justice need to have a strong 
partnership for police training to succeed rapidly.
    To advance reconstruction activities requires security and 
stability, which depends on effective Rule of Law. There should have 
been more of an integrated interagency effort on establishing a Rule of 
Law system from the very start of our engagement in Iraq and 
Afghanistan.
    I wish we could have made more progress in getting the PRTs staffed 
with a balanced team of both military and especially civilian skill 
sets required to achieve their mission.
    Question. Do you see any potential for conflict between your 
previous role in these efforts and your new role as DOD IG, if 
confirmed?
    Answer. I do not.
    Question. If confirmed, what steps would you take to address any 
such conflict?
    Answer. I do not believe this will present any conflict. However, 
if there was every any doubt, I would recuse myself on any potential 
conflicts of interest.
    Question. Recent press articles have criticized the decision by 
U.S. officials in 2003 and 2004 to shut down Iraqi state-owned 
enterprises, resulting in the loss of employment for thousands of 
Iraqis.
    What is your view of this issue?
    Answer. At the time, I was not aware of this decision. But, one of 
the most critical problems faced today in Iraq is employment and 
economic development. We should assist the Iraqi Government to increase 
employment for the Iraqi people to the extent possible.
    Question. Did you play any role in this decision?
    Answer. I did not.
  oversight of medical functions, including outpatient administration
    Question. Reports of medical cases from military treatment 
facilities involving tragic outcomes and allegations of medical 
malpractice have raised questions about the adequacy of existing 
reporting, investigatory, and readiness systems within the Defense 
Health Program and military treatment facilities. The ability of those 
outside the military medical system to fairly evaluate individual cases 
and overall quality of care is affected by such factors as the tort 
claim laws and adversarial litigation against the United States, 
reliance on privileges from the release of documents and information 
associated with such litigation and separate quality assurance systems, 
patient privacy requirements, and concern about the reputations of 
individual providers. Recently, deficiencies in the housing and 
administration of severely injured soldiers and marines in a medical 
hold status at Walter Reed Army Medical Center have raised questions 
about the adequacy of oversight into the care of outpatients and 
members involved in the disability evaluation system.
    Do you have any views about the role the DOD IG should play in 
improving visibility into and objective assessments of the quality of 
care provided through the military medical system?
    Answer. It is my understanding that health care is a major 
management challenge identified in the last DOD IG Semiannual Report to 
Congress. In particular, the DOD IG noted that the frequency and 
duration of military deployments further stresses the military health 
system in both the Active and Reserve components.
    If confirmed, I will ensure that the DOD OIG continues to provide 
the independent review and oversight necessary of the military health 
system. Without the benefit of detailed information on DOD oversight 
efforts, I am not currently in a position to offer specific views about 
actions the DOD OIG might take to improve its oversight of medical 
functions.
    My belief is that the DOD IG and the Service IG have a major role 
to play in ensuring that these great American heroes and patriots are 
receiving the health care they and their families have a right to 
expect. But, I don't think it stops there. DOD and Department of 
Veterans' Affairs (VA) should be working hand in glove to ensure the 
transition between DOD and VA health care system is seamless. DOD 
should work with VA to ensure that the best possible treatment and care 
continues throughout recovery and in some cases, the rest of their 
life. It does not stop there--I think they should do everything 
possible to bring as many of our injured troops back to military duty, 
commensurate with their ability. We should also find civilian positions 
in DOD and other Federal agencies for these men and women.
    Question. What resources and expertise does the DOD IG currently 
have--or lack--to play a more prominent role in assessing the 
performance of health care providers in the DOD?
    Answer. I do not know the answer. If confirmed, this will be a top 
priority for me to ensure that DOD IG has the resources and expertise 
to play a prominent role in assessing and ensuring that the wounded 
troops coming off the battlefield are getting the care they deserve.

                              INTELLIGENCE

    Question. What is the role of the DOD IG with regard to 
intelligence activities within DOD?
    Answer. I am informed that the IG, through the Deputy Inspector 
General for Intelligence, has responsibility for oversight of DOD 
intelligence activities and components as identified in DOD Directive 
5240.1, ``DOD Intelligence Activities,'' dated April 25, 1988. These 
include all DOD components conducting intelligence activities, 
including the National Security Agency/Central Security Service, the 
Defense Intelligence Agency, the military department intelligence and 
counterintelligence activities, and other intelligence and 
counterintelligence organizations, staffs, and offices, or elements 
thereof, when used for foreign intelligence or counterintelligence 
purposes. Other organizations and components under the IG's oversight 
not specifically identified in DOD Directive 5240.1 include the Office 
of the Under Secretary of Defense for Intelligence (USD(I)), the 
National Reconnaissance Office, and the National Geospatial-
Intelligence Agency. Responsibilities and functions of the IG as 
outlined in DOD Directive 5106.1, ``Inspector General of the Department 
of Defense,'' include the responsibility to audit, evaluate, monitor, 
and review the programs, policies, procedures, and functions of the DOD 
Intelligence Community to ensure that intelligence resources are 
properly managed.
    The DOD IG performs an oversight and coordination role through the 
Joint Intelligence Coordination Working Group (JIOCG). The JIOCG is a 
DOD working group chaired by the Deputy Inspector General for 
Intelligence and includes representatives from the Service audit 
agencies, military department IGs, and Defense Intelligence Agencies 
IGs. The primary goal of the JIOCG is to avoid duplication of effort 
and enhance coordination and cooperation among IGs and Auditors General 
inside the DOD and promote information-sharing among IGs whose 
functions include audits, inspections, evaluations, or investigations 
of their respective departments and agencies.
    Question. What is the relationship of the DOD IG to the Special 
Assistant to the Secretary of Defense for Intelligence Oversight?
    Answer. DOD Directive 5106.1 requires that intelligence-related 
actions be coordinated, as appropriate, with the Assistant to the 
Secretary of Defense (Intelligence Oversight) (ATSD(IO)) to determine 
respective areas of responsibility in accordance with DOD Directive 
5148.11, ``Assistant to the Secretary of Defense for Intelligence 
Oversight,'' dated May 21, 2004. (DOD Directive 5148.11 contains 
similar language for the ATSD(IO) to coordinate with the IG, as 
appropriate.) I am advised that the ATSD(IO) is a charter member of the 
JIOCG, and that the OIG has a long history of coordination and 
cooperation with the ATSD(IO).
    Question. What is the relationship of the DOD IG to the IG of the 
Office of the Director of National Intelligence (DNI)?
    Answer. The DOD IG's primary relationship with the DNI IG concerns 
participation in the Intelligence Community (IC) IG Forum. The IC IG 
Forum promotes information-sharing among the IGs of the departments and 
agencies of the IC whose functions include audits, inspections/
evaluations, or investigations of their respective departments and 
agencies. The IC IG Forum also strives to avoid duplication of effort 
and enhance effective coordination and cooperation among IC IGs. The 
DNI IG chairs the IC IG Forum.
    In addition to the IC IG Forum relationship, the DOD IG 
participates in various projects and initiatives undertaken by the DNI 
IG. The DNI IG also coordinates with the Office of the Deputy Inspector 
General for Intelligence on all ongoing projects relating to DOD 
organizations and activities.
    Question. What is the role of the DOD IG with respect to detainee 
matters?
    Answer. According to my reading of the Inspector General Act, the 
IG's statutory responsibility for oversight extends to oversight of 
detainee and interrogation matters. In that regard, I am advised that 
the OIG recently issued two final reports regarding detainee abuse.
    Question. What is the role of the DOD IG with respect to 
interrogation matters?
    Answer. Please see my answer to the previous question.
    Question. Do you have any concerns about whether investigations and 
reviews conducted by the DOD IG with regard to intelligence activities 
are or have been appropriate?
    Answer. It is my understanding that all investigations and reviews 
conducted have been within the IG's statutory authority.

 INVESTIGATION INTO ACTIVITIES OF THE OFFICE OF THE UNDER SECRETARY OF 
                           DEFENSE FOR POLICY

    Question. The OIG recently completed an investigation into the 
activities of the Office of the Under Secretary of Defense for Policy 
related to pre-war intelligence on Iraq and the purported links between 
Iraq and al Qaeda. This investigation was conducted in response to 
requests from the Senate. The OIG has been criticized for conducting 
this investigation and for the findings of the investigation.
    What is your view of the OIG's investigation into the activities of 
the Office of the Under Secretary of Defense for Policy?
    Answer. I have no knowledge of this case except a few news clips on 
the evening news.
    Question. Do you believe that the OIG should have conducted this 
investigation?
    Answer. Please see my response to the previous question.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the IG of the DOD?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Questions submitted by Senator Robert C. Byrd

                               CHALLENGES

    1. Senator Byrd. Lieutenant General Kicklighter, what do you see as 
your most significant challenge as the Department of Defense (DOD) 
Inspector General (IG)?
    General Kicklighter. My top priority will be to learn what 
challenges the DOD IG office needs to address and to ensure the 
adequacy of resources required to accomplish its mission.
    Promoting efficiency and preventing fraud in defense acquisitions 
will obviously be a high priority--as well as effective support for the 
men and women of our armed services serving in Iraq and Afghanistan. I 
will also ensure that the OIG pursues aggressive oversight of 
contracting issues. There undoubtedly are several other key matters 
that will merit prioritization. If confirmed, I look forward to 
consulting with current OIG management, the Department, and Congress, 
in establishing broad priorities.

                            CONTRACTOR WASTE

    2. Senator Byrd. Lieutenant General Kicklighter, there have been 
many investigations and reports of contractor waste, fraud, and abuse 
at DOD. How do you plan to address these issues, particularly as they 
relate to government contractors?
    General Kicklighter. Conducting effective oversight over the 
Department's contracts will be among our top priorities in the IG 
office. The men and women of our Armed Forces, and our Nation's 
taxpayers, have a right to expect that the funds appropriated by 
Congress for defense are being utilized with cost-efficiency and 
integrity.

                      MEDICAL SYSTEM DEFICIENCIES

    3. Senator Byrd. Lieutenant General Kicklighter, recently, the 
military medical system has been exposed as having serious 
deficiencies. What do you feel that the role of the IG is in 
investigating these issues?
    General Kicklighter. It is my understanding that health care is a 
major management challenge identified in the last DOD IG Semiannual 
Report to Congress. In particular, the DOD IG noted that the frequency 
and duration of military deployments further stresses the military 
health system in both the Active and Reserve components.
    I will ensure that the DOD OIG continues to provide the independent 
review and oversight necessary of the military health system. Without 
the benefit of detailed information on DOD oversight efforts, I am not 
currently in a position to offer specific views about actions the DOD 
OIG might take to improve its oversight of medical functions.
    My belief is that the DOD IG and the Service IG have a major role 
to play in ensuring that these great American heroes and patriots are 
receiving the health care they and their families have a right to 
expect. But, I don't think it stops there. DOD and Department of 
Veterans' Affairs (VA) should be working hand in glove to ensure the 
transition between the DOD and the VA health care system is seamless. 
DOD should work with VA to ensure that the best possible treatment and 
care continues throughout recovery and in some case the rest of their 
lives.

                         MOST PRESSING PROBLEMS

    4. Senator Byrd. Lieutenant General Kicklighter, what do you see as 
the most pressing systemic problems to be addressed within DOD?
    General Kicklighter. In the Semiannual Report to Congress, the OIG 
lists the most serious management and performance challenges faced by 
the DOD based on the findings and recommendations of audits, 
inspections, and investigations conducted during the year. In addition 
to the global war on terrorism, the most recent Semiannual Report to 
Congress lists the following challenges:

         Joint Warfighting and Readiness
         Human Capital
         Information Security and Privacy
         Acquisition Process and Contract Management
         Financial Management
         Health Care

    5. Senator Byrd. Lieutenant General Kicklighter, are there other 
situations on the order of the Walter Reed situation that need 
attention before they become national media scandals?
    General Kicklighter. Currently, I do not have sufficient knowledge 
to identify such situations. It would be my goal to proactively 
identify programs within DOD that require the attention of management 
to either prevent fraud or abuse or to improve their efficiency and 
effectiveness.

                         MISSING FUNDS IN IRAQ

    6. Senator Byrd. Lieutenant General Kicklighter, what do you feel 
is the role of the DOD IG in connection with identifying the 
whereabouts of billions of dollars in missing funds in Iraq--funds that 
might be being used by insurgents to fund operations against U.S. 
forces?
    General Kicklighter. Currently, I am not familiar with the details 
regarding the missing funds in Iraq. I will look at the relevant 
information and determine what action would be required by the Office 
of the Inspector General.

    7. Senator Byrd. Lieutenant General Kicklighter, what do you plan 
to do to identify the location of and seize those funds?
    General Kicklighter. Please see my response to the previous 
question.

                         FURTHER INVESTIGATIONS

    8. Senator Byrd. Lieutenant General Kicklighter, do you intend to 
further investigate the conclusions of the report prepared by Acting 
Inspector General Thomas Gimble regarding the pre-Iraq war activities 
of the Office of the Under Secretary of Defense for Policy?
    General Kicklighter. I am not aware of any outstanding issues that 
require further investigation at this time. I will work with Congress 
to consider any further concerns and what additional work by the DOD IG 
would be appropriate.

    9. Senator Byrd. Lieutenant General Kicklighter, do you believe 
that further investigation of these ``inappropriate activities,'' in 
the words of the report, is warranted?
    General Kicklighter. Please see my response to the previous 
question.

    10. Senator Byrd. Lieutenant General Kicklighter, do you believe 
that reforms should be enacted to ensure that these activities do not 
take place in the future?
    General Kicklighter. As stated in the DOD OIG report, the creation 
of the Under Secretary of Defense for Intelligence and the aggressive 
efforts of the Director of National Intelligence's National 
Intelligence Council and analytic integrity and standards have 
contributed to a more favorable operational environment.

                  INVESTIGATING THE PROCUREMENT SYSTEM

    11. Senator Byrd. Lieutenant General Kicklighter, as the IG for 
DOD, how will you identify and investigate counterfeit material and 
other forms of unauthorized product substitution into the procurement 
system?
    General Kicklighter. As I understand it, the introduction of 
counterfeit material and other forms of unauthorized product 
substitution into the procurement system has historically been and 
continues to be one of the Office of the Inspector General's Defense 
Criminal Investigative Service's highest priority for deterrence, 
investigation, and prosecution. Product substitution investigations 
comprise a major part of the Defense Criminal Investigative Service 
inventory. We will continue the efforts already underway within the 
Defense Criminal Investigative Service and expand if required.
                                 ______
                                 
    [The nomination reference of LTG Claude M. Kicklighter, USA 
(Ret.), follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 February 26, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Claude M. Kicklighter of Georgia, to be Inspector General, 
Department of Defense, vice Joseph E. Schmitz, resigned.
                                 ______
                                 
    [The biographical sketch of LTG Claude M. Kicklighter, USA 
(Ret.), which was transmitted to the committee at the time the 
nomination was referred, follows:]
         Biographical Sketch of Claude M. ``Mick'' Kicklighter

    Claude M. Kicklighter has served his country for over 50 years, 
first as an Army officer for over 35 years, retiring as a Lieutenant 
General, followed by over 15 years as a distinguished public servant. 
Most recently, in October 2005, he was selected by the Secretaries of 
State and Defense to establish and direct the Iraq/Afghanistan Joint 
Transition Planning Group, a joint Department of State and Department 
of Defense team that has provided analysis and recommendations for 
coordinating efforts to address transition challenges in Iraq and 
Afghanistan.
    In addition to serving in this position, since his retirement in 
1991, Mick Kicklighter has held a number of senior positions in the 
Departments of Defense, State, and Veterans Affairs. Prior to his 
current assignment, he was the Chief of Staff, Department of Veterans 
Affairs. In 2004, he was designated as Special Advisor to the Deputy 
Secretary of State for Stabilization and Security Operations in Iraq 
and Afghanistan. In 2003, he was Director of the Department of 
Defense's Iraq Transition Team that, together with the Department of 
State's Iraq Transition Team, planned the inactivation of the Coalition 
Provisional Authority and the establishment of the new U.S. Mission 
Baghdad.
    Prior to this, Mick Kicklighter was nominated by the President and 
confirmed by the Senate, in 2001, as Assistant Secretary for Policy and 
Planning, Department of Veterans Affairs, which later became the Office 
of Policy, Planning, and Preparedness after the attacks on September 
11, 2001. In this role, he was senior advisor to the Secretary on 
strategic planning, policy research and analysis, program evaluation, 
emergency operations, preparedness, and security and law enforcement.
    Previously, he served as Deputy Under Secretary of the Army for 
International Affairs. LTG(R) Kicklighter also was Director of our 
Nation's commemorative activities in the United States and around the 
globe that thanked and honored our World War II veterans and their 
families during the 50th Anniversary of World War II.
    During his more than 35-year career as a military officer, LTG(R) 
Kicklighter commanded units at every level from platoon through Army 
Division, and then commanded a theater Army. Senior level commands 
included serving as Commander, U.S. Army Pacific, 25 Infantry Division 
(Light), and the U.S. Army Security Assistance Command. He also held 
senior level staff assignments with the Office of the Joint Chiefs of 
Staff, the Office of the Secretary of Defense, and the Department of 
the Army, including being the Director of the Army Staff, and Chief of 
Staff at the Army Material Command.
    During his military service, LTG(R) Kicklighter received the 
Distinguished Service Medal (3 awards), the Defense Superior Service 
Medal, the Legion of Merit (4 awards), and the Bronze Star, Meritorious 
Service Medal (2 awards), Army Commendation Medal (5 awards) as well as 
various foreign decorations; Argentina Order of May, French Order 
National Du Merite; Korean Order of National Security Gugseon Medal; 
and the Silver Honorary Order of Freedom of the Republic of Slovenia.
    His civilian awards include the Presidential Citizen Medal, the 
Eisenhower Liberation Medal, the Decoration for Exceptional Civilian 
Service, and the Department of Defense Medal for Distinguished Public 
Service (twice).
    While a public servant, he served on the Board of Directors for 
Habitat for Humanity International and as its Chairman for 3 years.
    Born and raised in Glennville, GA, Mick Kicklighter graduated from 
Mercer University with a Bachelor of Arts Degree in biology and was 
commissioned a Second Lieutenant in Field Artillery. He earned a Master 
of Arts Degree in Management of National Resources from the School of 
Business Administration, George Washington University, and is a 
graduate of the United States Army Command and General Staff College, 
and the Industrial College of the Armed Forces. His overseas tours 
include France, Germany, the Netherlands, Iran, and two tours in 
Vietnam.
    Mick Kicklighter is married to the former Elizabeth Exley and they 
have three adult children--Elizabeth, Claude, Jr., and Richard--and 
five grandchildren.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by LTG Claude M. 
Kicklighter, USA (Ret.), in connection with his nomination 
follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Claude M. Kicklighter, Sr.

    2. Position to which nominated:
    Inspector General for the Department of Defense.

    3. Date of nomination:
    26 February 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    22 August 1933; Glennville, GA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Elizabeth Exley Kicklighter.

    7. Names and ages of children:
    Elizabeth Jane Kicklighter Palmer, 10/12/55; Claude Milton 
Kicklighter, Jr., 10/01/57; Richard Van Kicklighter, 10/14/58.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    George Washington University, Washington, DC.
    Dates attended: 09/73-08/04
    Degree: Masters of Arts Degree in Management of National Resources 
        from the School of Business Administration, George Washington 
        University
    Date Degree Received: 08/74

    Mercer University, Macon, GA
    Dates Attended: 01/53-06/55
    Degree: Bachelor of Arts/Biology
    Date Degree Received: 06/55

    University of Georgia, Athens, GA
    Dates Attended: 09/52-12/52
    Date Degree Received: N/A

    Georgia Military College (Junior College), Millagevile, GA
    Dates Attended: 09/51-06/52
    Date Degree Received: N/A

    Emory-At-Valdosta (Junior College), Valdosta, GA
    Dates Attended: 08/50-05/51
    Date Degree Received: N/A

    Glennville High School, Glennville, GA
    Dates Attended: 09/46-05/50
    Diploma: High School Diploma
    Date Diploma Received: 05/50

    Military Schools as shown on Enclosure

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Director, Iraq/Afghanistan Transition Planning Group, Department of 
Defense, 1401 Wilson Blvd, Suite 400, Rosslyn, VA, 10/2005-Present.
    Chief of Staff, Department of Veterans Affairs, 810 Vermont Ave., 
NW, Washington DC, 02/2005-10/2005.
    Special Advisor, Department of State, 2201 C St., NW, Washington, 
DC, 10/2004-02/2005.
    Director, Iraq/Afghanistan Transition Planning Group, Department of 
Defense, 1010 Defense Pentagon, Washington, DC, 12/2003-10/2004.
    Assistant Secretary, Policy, Planning, and Preparedness, 08/2001-
12/2003.
    Director, Acting, Assistant Secretary, Public and Intergovernmental 
Affairs, 01/2001-08/2001.
    Principal Deputy Under Secretary, Memorial Affairs, Department of 
Veterans Affairs, 810 Vermont Ave., NW, Washington, DC, 04/2000-01/
2001.
    Chief of Staff, Value America, Inc., Charlottesville, VA, 07/1999-
03/2000.
    Deputy Under Secretary--International Affairs, The Pentagon, 102 
Army Pentagon, Washington, DC, 10/1995-06/1999.
    Director, WWII 50th Anniversary, DOD Committee, The Pentagon, 102 
Army Pentagon, Washington, DC, 07/1991-09/1995.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    When I left Federal service in July 1999, I was asked to be a 
consultant with the Department of the Army, without compensation, and I 
accepted the position. I was never asked to perform any service. This 
appointment began in October and expired in October.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    I served on the Vestry of The Falls Church (Falls Church, VA). I am 
soon resigning on the Board of Enterprise Development.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Political contributions of Elizabeth and Claude Kicklighter from 
March 2002 until March 2007:

2002:
16 April 2002......................  Republican National        $125.00
                                      Committee.
4 September 2002...................  RNC Presidential            125.00
                                      Victory Team.
 
2003:
31 January 2003....................  Republican National         150.00
                                      Committee.
13 March 2003......................  Republican National         150.00
                                      Committee.
7 July 2003........................  National Rep.               100.00
                                      Senatorial Committee.
9 September 2003...................  Republican National         150.00
                                      Committee.
19 September 2003..................  National Rep.               100.00
                                      Senatorial Committee.
12 December 2003...................  National Rep.               100.00
                                      Senatorial Committee.
 
2004:
11 March 2004......................  Bush-Cheney 2004......      350.00
29 August 2004.....................  Bush-Cheney 2004......      100.00
29 August 2004.....................  Republican National         150.00
                                      Committee.
31 October 2004....................  Republican                  300.00
                                      Presidential Trust.
28 December 2004...................  Republican National         450.00
                                      Committee.
 
2006:
13 February 2006...................  Republican National         500.00
                                      Committee.
10 July 2006.......................  Friends of George           145.00
                                      Allen.
12 October 2006....................  Republican National         125.00
                                      Committee.
 
2007:
None to Date.......................
 

    My wife decides on our political contributions and signs all the 
checks. Even though I rarely am consulted of these contributions, I 
support her decisions and the right to make these contributions.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
    Presidential Citizen Medal, 1995
    Eisenhower Liberation Medal (presented by the U.S Holocaust 
Memorial Council)
    Department of Defense Distinguished Civilian Service Award, 1999
    Department of Defense Medal for Distinguished Public Service, 2006
    Department of Defense Medal for Distinguished Public Service, 1996
    Department of Defense Medal for Distinguished Public Service, 1994
    Declaration for Exceptional Civilian Service presented by Secretary 
of the Army, 1998
    Distinguished Service Medal with two Oak Leaf Clusters
    Defense Superior Service Medal
    Legion of Merit with three Oak Leaf Clusters
    Bronze Star Medal
    Meritorious Service Medal with Oak Leaf Cluster
    Army Commendation Medal with four Oak Leaf Clusters
    Secretary of Defense Identification Badge
    Joint Chiefs of Staff Identification Badge
    Army General Staff Identification Badge
    Order of Aaron and Hur, awarded by the Chaplain's Corp
    Argentina Order of May
    French Order National du Merite
    Korean Order of National Security Gugseon Medal
    Silver honorary Order of Freedom from the Republic of Slovenia

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Wrote an article for Jane's Magazine describing NATO's Central 
European Pipeline operation in 1981. Received a check for $200, which I 
returned to the publisher.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years of which you have 
copies and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate Committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                             Claude M. Kicklighter.
    This 14th day of March, 2007.

    [The nomination of LTG Claude M. Kicklighter, USA (Ret.), 
was reported to the Senate by Chairman Levin on March 28, 2007, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on April 12, 2007.]
                              ----------                              

    [Prepared questions submitted to Lt. Gen. James R. Clapper, 
USAF, (Ret.), by Chairman Levin prior to the hearing with 
answers supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. By any measure, the Goldwater-Nichols legislation has been 
a resounding success. I see no need for modification at this time; if 
confirmed, I will be alert to the need for change.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Under Secretary of Defense for Intelligence (USD(I))?
    Answer. If I am confirmed for this position, my primary 
responsibility will be to support the Secretary of Defense in 
discharging his intelligence-related responsibilities and authorities 
under title 10 and title 50, U.S.C. This includes:

        <bullet> Serving as the principal intelligence advisor to the 
        Secretary of Defense.
        <bullet> Exercising authority, direction, and control on behalf 
        of the Secretary of Defense, over all intelligence 
        organizations within the Department of Defense (DOD).
        <bullet> Ensuring that intelligence organizations in DOD are 
        manned, organized, trained, and equipped to support the 
        missions of the Department.
        <bullet> Ensuring that intelligence organizations in the 
        Department which are part of the National Intelligence 
        Community are responsive to the Director of National 
        Intelligence (DNI), in the execution of the DNI's authorities.
        <bullet> Ensuring that the combatant forces, the Joint Chiefs 
        of Staff, and the civilian leadership of the Department are 
        provided with appropriate intelligence support.
        <bullet> Ensuring that counterintelligence activities in the 
        Department are conducted and managed efficiently and 
        effectively.
        <bullet> Overseeing DOD personnel, facility, and industrial 
        security to ensure adequacy, efficiency, and effectiveness.
        <bullet> Serving as the Program Executive for the Military 
        Intelligence Program (MIP), and ensuring that the Defense 
        components of the National Intelligence Program (NIP) are 
        robust, balanced, and in compliance with guidance and direction 
        of the DNI.
        <bullet> Ensuring the Department provides the U.S. Congress 
        with intelligence-related information sufficient to execute its 
        oversight responsibilities.

    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have spent over 43 years in the profession of 
intelligence--in the military, in civil service, in the private sector, 
and in education. I have had the privilege and distinction of serving 
for a total of over 8\1/2\ years as Director of two of the national 
intelligence (and combat support) agencies, the Defense Intelligence 
Agency (DIA) (1991-1995) and the National Geospatial-Intelligence 
Agency (NGA) (2001-2006).
    I retired as a Lieutenant General in l995, after a 32-year career 
in the United States Air Force. My assignments prior to my 4 years as 
Director of DIA almost exclusively focused on intelligence and included 
the Chief of Air Force intelligence during Operations Desert Shield/
Desert Storm and as Director of Intelligence (J-2) for three combatant 
commands (COCOMs): U.S. Forces, Korea; Pacific Command; and Strategic 
Air Command. I commanded an airborne Signals Intelligence unit in 
combat, a national-level scientific and technical intelligence center, 
and an Air Force Electronic Security Wing. I served two year-long 
combat tours during the Southeast Asian conflict; during the second, I 
flew 73 combat support missions in EC-47 aircraft over Laos and 
Cambodia.
    During my 6\1/2\ years in the private sector, I served as an 
executive in four professional service companies in which my focus was 
on the Intelligence Community as a client. I both led business units, 
and served as a subject matter expert.
    I have served on numerous government boards, commissions, panels, 
advisory groups, and task forces, addressing intelligence-related 
issues. I was a member of the Downing Assessment Task Force which 
investigated the Khobar Towers bombings in l996; was vice chairman of a 
congressionally-mandated commission chaired by former Governor Jim 
Gilmore of Virginia on the subject of homeland security; and was a 
member of the National Security Agency Advisory Board for over 4 years. 
I am currently the Chairman of the Central Intelligence Agency (CIA) 
External Advisory Board, and am the Intelligence and National Security 
Alliance Distinguished Professor of Intelligence at Georgetown 
University.
    I have worked with the Departments of State, Justice, Energy, and 
Homeland Security in the course of my career, and served for a total of 
11 years in the Pentagon for administrations of both political parties. 
I understand intelligence at the strategic, operational, and tactical 
levels, having served in all three.
    In sum, I believe I have the length, breadth, and depth of 
professional experience in intelligence at all levels, functions, and 
dimensions which distinctly qualifies me to serve as the USD(I).
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the USD(I)?
    Answer. Yes. If confirmed, and if the Secretary of Defense concurs, 
I would restructure the organization of the USD(I) staff along 
functional lines, and patterned after the DNI staff, as Director 
McConnell intends to restructure it. This would help synchronize the 
DOD intelligence components with the DNI.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense would prescribe for you?
    Answer. First and foremost, I believe the Secretary would expect me 
to discharge the duties and functions--both explicit and implicit--
outlined in the response to the previous question under ``Duties.''
    Second, the Secretary is committed to fully supporting the DNI, and 
ensuring that the DNI has visibility and authority over the full range 
of intelligence activities in the Department, without abrogating his 
statutory obligations.
    Third, given the magnitude of the responsibilities of the USD(I), 
he will look to me to transfer any non-intelligence functions and 
activities now residing with the position of the USD(I), to the 
appropriate staff element.

                             RELATIONSHIPS

    Question. In carrying out your duties, how will you work with the 
following:
    The Secretary of Defense.
    Answer. I will attempt to relieve the Secretary of as many burdens 
in the intelligence domain as possible, will keep him informed, and 
seek his guidance and direction when appropriate.
    Question. The Deputy Secretary of Defense.
    Answer. I would endeavor to keep the Deputy fully informed, seek 
his guidance and direction when appropriate, and support him in his 
role as the alter ego of the Secretary.
    Question. The Under Secretaries of Defense.
    Answer. Each of the other four under secretaries has broad-gauged 
responsibilities and authorities, which impact on intelligence in DOD, 
and vice-versa. I intend to promote dialogue, understanding, and mutual 
support.
    Question. The Assistant Secretary of Defense for Network and 
Information Integration (ASD(NII)).
    Answer. My approach with the ASD(NII) would be the same as with the 
under secretaries. The relationship here needs to be especially close, 
since this office represents key enablers for the conduct of 
intelligence activities.
    Question. The Deputy Assistant Secretary of Defense for Detainee 
Affairs.
    Answer. I am not directly familiar with this office, since I did 
not have occasion to interact with it in my former capacity as Director 
of NGA. I would expect to foster close collaboration, particularly with 
respect to oversight of detainee interrogation policy and procedures.
    Question. The Deputy Assistant Secretary of Defense for Special 
Operations/Low Intensity Conflict.
    Answer. In the current world environment, the importance of Special 
Operations has grown. There are pervasive interactions between 
intelligence and special operations which entail mutual support and 
clear lines of responsibility and oversight. I intend to pay close 
attention to this relationship.
    Question. The Service Secretaries and the Service Intelligence 
Directors.
    Answer. Having served as a Service Intelligence Director, I believe 
I understand their perspectives and responsibilities to man, organize, 
train, and equip the intelligence forces in each of the Services. As 
such, I intend to support their needs, and work with them to address 
these needs primarily through the management of the MIP. I would also 
maintain an open dialogue with the Service Secretaries, providing 
guidance and direction in intelligence and related issues, when 
appropriate.
    Question. The General Counsel of the DOD.
    Answer. I am acutely aware of the crucial role the DOD General 
Counsel plays, particularly because of the many complex legal issues 
that arise in intelligence, security, and counterintelligence. I have 
worked closely with this office as an Intelligence Agency Director 
twice, and as Chief of Air Force Intelligence. I am very interested in 
maintaining the current superb level of support from the Office of the 
DOD General Counsel, particularly the senior ``embedded'' attorney 
assigned to Office of the Under Secretary of Defense for Intelligence 
(OUSD(I)), for liaison and requisite legal guidance.
    Question. The Commanders of the Combatant Commands.
    Answer. I believe it is a prime obligation of the USD(I) to ensure 
that the intelligence needs of the COCOMs are fulfilled. I have served 
as the Director of Intelligence in three of these commands, and have 
visited all of them many times during the course of my career. I 
believe I have an informed perspective on each of them. I intend to 
have an open dialogue with them, and, when possible, travel to each of 
the commands to understand current needs and concerns. I would 
anticipate working closely with the respective Directors of 
Intelligence (J-2s) on a routine basis.
    Question. The Directors of the Defense Intelligence Agencies.
    Answer. Having served as Director of two of these agencies (DIA and 
NGA), spent 8 years at National Security Agency (NSA), and worked 
closely with the National Reconnaissance Office (NRO) for over 30 
years, I believe I have a reasonably sound grasp of the cultures, 
capabilities, and shortfalls of each of them. I intend to work closely 
with the agency directors to: (1) stay informed as to what they are 
doing; (2) assist them when possible; (3) and provide direction and 
guidance when appropriate.
    Question. The Under Secretary of the Air Force.
    Answer. This relationship will be different than it was when I most 
recently served as Director of NGA. Traditionally, this position has 
been dual-hatted as the Director of NRO; currently, these two positions 
are separate. I believe this is a much sounder arrangement. The Under 
Secretary's remaining responsibilities still intersect with those of 
the NRO, so I would anticipate coordination and collaboration.
    Question. The Director of National Intelligence.
    Answer. I would anticipate a very close relationship with the DNI. 
The Secretary of Defense wishes to synchronize DOD intelligence with 
the DNI. Eight of the 16 components of the Intelligence Community are 
embedded in DOD, which constitute a substantial portion of the Nation's 
intelligence capabilities and resources. I believe there are 
improvements that can be made by clarifying this relationship 
institutionally, and partnering with the DNI to manage intelligence as 
a seamless enterprise. I agree with Admiral McConnell's priorities, and 
intend to work cooperatively with the DNI to bring them to fruition, 
without compromising the Secretary's statutory responsibilities and 
authorities. On a personal level, Admiral McConnell and I have been 
professional colleagues and personal friends for over 20 years. I 
anticipate a very close, productive relationship with the DNI.
    Question. The Director of the National Counterterrorism Center 
(NCTC).
    Answer. I worked with the Director of the NCTC when I served as 
Director of NGA. I was committed to the success of the NCTC then, and 
would, if confirmed, continue to support the mission of this crucial 
organization. I know and greatly respect Vice Admiral Redd, having 
worked with him when he was a member of the Weapons of Mass Destruction 
Commission.
    Question. The Deputy Directors of National Intelligence.
    Answer. I would intend to foster a collaborative relationship with 
the DDNI's, as well as with designated counterparts on the USD(I) 
staff. It would be my intent, if confirmed, to pattern the USD(I) staff 
after the Office of the Director of National Intelligence (ODNI), as 
Admiral McConnell intends to restructure it. This, we are both 
convinced, will promote closer coordination with counterparts. I have 
known and worked with all the Deputy Directors of National 
Intelligence, and would leverage these past productive working 
relationships, as the USD(I).
    Question. Officials in the Department of Homeland Security with 
intelligence responsibilities.
    Answer. I would intend to bolster the close relationship I had with 
these officials when I served as Director of NGA. I am familiar with 
these elements, since NGA provides dedicated support to them, 
particularly during national security special events, and in the wake 
of natural disasters such as Hurricanes Rita/Katrina. I have known the 
current Assistant Secretary for Intelligence, Charlie Allen, for over a 
quarter of a century; he is a respected professional colleague and 
close personal friend, and I would anticipate a continued close and 
collaborative relationship.
               major challenges, problems, and priorities
    Question. In your view, what are the major challenges that will 
confront the USD(I)?
    Answer. Since I am nominated but not confirmed, I do not have an 
inside perspective, but believe there are sets of issues that are 
virtually perpetual, which I would outline as follows:

        <bullet> Internal to USD(I): There are organizational, 
        structural, and personnel issues that will have to be dealt 
        with arising from a change in leadership.
        <bullet> Internal to DOD: Collectively, there are challenges 
        confronting all of the eight intelligence components of the 
        Department. Similarly, each has component-centric issues and 
        challenges. If confirmed, I will have to select and rank those 
        which merit the attention from the USD(I) level. This 
        includes--by way of example, but not exhaustion--acquisition 
        challenges at NSA, NGA, and the NRO; human capital issues 
        across all components; programming and financial management 
        issues; oversight concerns involving the nexus of the needs of 
        national security and civil liberties; the balancing of 
        resources to satisfy many competing requirements, et cetera. 
        Above all, of course, are the continuing challenges involved in 
        ensuring intelligence support to our forces in harm's way, 
        particularly in Iraq and Afghanistan. This includes--again, by 
        way of selected examples--intelligence support to thwarting 
        improvised explosive devices, sharing intelligence with 
        coalition forces, ensuring the flow of intelligence to and 
        through the ``last tactical mile'' (or, perhaps more aptly, the 
        ``first tactical mile''); countering the adversary use of the 
        internet; and substantially improving foreign language 
        capabilities.
        <bullet> Intelligence Community: A major challenge (and an 
        opportunity, as well) is to crystallize the relationship with 
        the DNI. Challenges here include sharing and collaboration 
        between and among the ``stovepipes;'' overhauling security 
        policies; improving acquisition; clarifying roles and 
        responsibilities in clandestine activities, building on the 
        success of the National Clandestine Service; and transforming 
        analysis.

    Question. What do you anticipate will be the most serious problems 
in the performance of the functions of the USD(I)?
    Answer. This question infers to me ``what are the internal 
obstacles to optimum performance of the USD(I) staff in the discharge 
of its functions and responsibilities?''
    It appears to me that the current organizational structure of the 
USD(I) is neither optimized for the missions it must perform, nor 
postured for the relationship that should exist with the DNI. The lack 
of a designated full-time deputy has hindered internal coordination. 
Moreover, I do not believe the current staff is large enough to fulfill 
their existing responsibilities.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. See answer below.
    Question. What management actions and timelines would you establish 
to address these problems?
    Answer. See answer below.
    Question. What broad priorities would you establish in terms of 
issues which must be addressed by the USD(I)?
    Answer. I would cite the organizing principles of General Templar, 
the successful architect of the British counterinsurgency campaign in 
Malaya:

    Get the priorities right
    Get the instructions right
    Get the organization right
    Get the right people into the organization
    Get the right spirit into the people
    Get out of the way so they can get on with it.

    If confirmed, I would intend to use the short tenure I will have as 
an advantage, by focusing on the issues I have outlined in the 
responses to the earlier question on major challenges, and driving 
progress with a sense of urgency.
    Accordingly, I anticipate promulgating a ``Campaign Plan''--a 
concise, yet comprehensive statement of strategic intent, in which I 
would describe objectives, priorities, and instructions, to reinforce 
those of the Secretary and Deputy Secretary. This will be the vehicle I 
would use to articulate a common understanding, and to elicit a common 
commitment by all DOD intelligence components, to a shared set of 
goals.
    I would hope to roll out this ``Campaign Plan'' very early in my 
tenure. In doing so, I intend to consult with the four Agency Directors 
and the four Service Intelligence Chiefs to gain their ``buy-in.'' I 
would intend to capitalize on the initiative already underway to build 
integrated ground architecture, and to harmonize that with similar 
efforts underway by the DNI. This will form the basis for real-time 
collaboration and data dissemination to the warfighter. I would intend 
to empower the component heads by delegating the authorities necessary 
to lead their components, and in so doing ensure that USD(I) is an 
enabler, not an impediment, to their success.
    I would rely upon them. I have ``been there, done that,'' both as 
an Agency Director (twice), a Service Intelligence Chief, and a J-2 
(three times), so I know their respective perspectives. I would demand 
that they lead and manage their respective components as part of the 
enterprise--and then hold them accountable--just as I wanted to be 
treated when I held these positions.
    I would particularly engage the active participation of the Service 
Intelligence Chiefs--who these days are understandably consumed with 
operational issues--in the dynamics of DOD intelligence. Their tactical 
military perspectives are crucial. I would plan to engage actively with 
the Military Intelligence Board, and to invigorate the Senior Military 
Intelligence Officer Conferences as a forum to engage all the component 
leadership.
    Staff members who are expert only in DOD must be rotated to the 
agencies, Services, or COCOMs to gain ``life experiences,'' (in accord 
with the emphasis on ``joint duty'' for the entire Intelligence 
Community). Overseers must be at least as knowledgeable as those whom 
they oversee. Similarly, other experts need to be brought in to deal 
with new and changing challenges, to replace dedicated but out-dated 
bureaucrats.
    Where appropriate, I would intend to travel to commands with 
component heads or their senior representative, involving them in 
problem identification and resolution.
    I would look for ways to implement small, quick-reaction 
capabilities, which often get lost in the wake of the ``big ticket'' 
programs.
    I would impose a ``Ten-Day Rule'' for staffing issues and making 
decisions, acknowledging that many issues are complex and perpetual.
    I would intend to conduct an in-progress review of human 
intelligence activities, both within the Department (to include the 
involvement of Special Operations), and externally with the CIA and the 
National Clandestine Service.
    In sum, I would quote from LTC John Nagl's landmark book, 
``Learning to Eat Soup With a Knife.'' While nominally a comparison of 
the British experience in Malaya to that of the American effort in 
Vietnam, it is really about cultural change, or more precisely, about 
the manner in which organizations fail to adapt to change. Nagl cites 
an instructive exchange between Field Marshal Montgomery and Colonial 
Secretary Lyttelton, as they contemplated the way ahead in Malaya:

          ``Dear Lyttelton:
            Malaya.
            We must have a plan.
            We must have a man.
            When we have a man with a plan, we will succeed.
            Not otherwise.
            Montgomery.''

    I trust the committee, and in turn the full Senate, will support 
this man with a plan.
                        information superiority
    Question. One major criticism of the creation of the Office of the 
USD(I) was the separation of intelligence from the Department's other 
information-intensive functions (such as command, control, information 
systems, Chief Information Officer, and cyberspace defense) and the 
creation of a new Assistant Secretary position to manage the latter 
(the ASD(NII)). Critics argued that it was unwise to split these 
functions, since they are inherently closely related and should be 
integrated as part of a strategy for achieving ``information 
superiority.'' The counterargument was that the intelligence function 
had become so important and complex after September 11 that it required 
full-time attention at the under secretary level.
    Do you believe that the USD(I) and ASD(NII) positions should remain 
separate?
    Answer. Yes. I regard the establishment of the position of USD(I) 
as long-overdue recognition of the importance, magnitude, and 
complexity of intelligence. There is no more rationale for 
subordinating intelligence to the stewards of the means for conveying 
and protecting it, than for any other form of information. Virtually 
any endeavor in DOD--operations, logistics, acquisition, medical, 
personnel, as well as intelligence--are all information-intensive. The 
ASD(NII) now has a holistic perspective to all forms of information, 
not just intelligence. It is in a better position to look across all 
information domains, and promote integration, robust networking, and 
security.
    Question. If you do think the positions should remain separate, do 
you think that there are adequate mechanisms in place for coordination 
and integration of the two broad functions?
    Answer. Again, I do not have the ``insider'' perspective, but it is 
my impression that sufficient coordination and integration mechanisms 
for the two functions do exist. If confirmed, I would certainly plan to 
verify that this is so, and would take appropriate action if I see need 
for improvement.

                          INFORMATION SHARING

    Question. There are still strong barriers to sharing, or allowing 
access to, the mass of intelligence data that has not been included in 
finished reports or analyses and approved for dissemination within the 
Intelligence Community.
    In one response to the problem, Congress mandated an ``information 
sharing pilot'' program between the NSA and the DIA's Joint 
Intelligence Task Force for Combating Terrorism (JITF-CT), which 
provided access for JITF-CT analysts to some NSA databases containing 
unevaluated or ``raw'' intelligence. This pilot program demonstrated 
that U.S. persons' privacy can be fully protected by giving non-NSA 
analysts the same training that NSA analysts receive in minimization 
procedures, subjecting the non-NSA analysts to the same auditing 
procedures, and ensuring that non-NSA analysts would be disciplined the 
same as NSA analysts for any transgressions. Since this pilot 
concluded, NSA and DIA have negotiated a Memorandum of Understanding 
(MOU) making access permanent. This MOU is now available to other 
intelligence agencies as a model agreement for broadening access to NSA 
terrorism information (but not information collected under the 
Terrorist Surveillance Program).
    Question. Do you support extending the access that DIA's JITF-CT 
has gained to NSA databases to other organizations?
    Answer. Like the NSA/DIA ``information sharing pilot'' mandated by 
Congress, NSA and NGA embarked on a similar arrangement whereby NGA 
employees were given access to selected NSA ``raw'' databases in the 
interest of collaboration between the disciplines of signals 
intelligence (SIGINT) and GEOINT. The centerpiece for this relationship 
was the GEOCELL, but the approach was expanded to other collection and 
analytic challenges. The agreement I struck with General Hayden, then 
Director, NSA, was that any NGA employees who were given (selected) 
access to SIGINT data had to abide by the same rules as NSA employees, 
i.e. training, compliance with U.S. Signal Intelligence Directive 18, 
auditing, and accountability for any transgressions. This program 
enjoyed great success, and is still extant. So, yes, absolutely, I 
would support selectively extending such access to other agencies and 
other issues, under the same ground rules.
    Question. If this model can work for NSA's sensitive SIGINT 
information, do you believe it would also work for CIA's human 
intelligence databases?
    Allowing outside analysts to access foreign intelligence data in 
the forms in which it is collected carries the risk that analysts will 
sometimes not understand it and could be overwhelmed by the volume of 
it. This concern has prompted proposals to augment access to raw 
foreign intelligence data with: (1) multi-disciplinary teams composed 
of experts from each of the collection disciplines (imagery, signals, 
and human intelligence) and led by all-source analysts; and (2) 
advanced information technology tools to help analysts search large 
data holdings for correlations and connections and to understand the 
results. Indeed, the individual intelligence agencies are exploiting 
this very technology as the means to cope with information overload. 
This technology could be used by analysts outside these agencies.
    Answer. Yes, I do, with the provision of analogous ground rules.
    Question. Do you support the concept of cross-agency and cross-
discipline analytic collaboration, either virtually or through physical 
co-location, on the basis of common missions or targets where all the 
analysts have common access?
    Answer. Yes, I do, when such arrangements make sense and hold the 
promise of better intelligence products, services, and solutions. My 
only reservation about such arrangements is that in the rush to 
proliferate and ``universalize'' them, tradecraft considerations are 
compromised. That is, one of the great strengths of our system of 
intelligence is the championing of the respective tradecraft by each of 
the intelligence disciplines. We must be careful not to homogenize all 
analysis; each form brings complementary attributes to the table, which 
serves to promote competitive analysis.
    Question. Do you support the paradigm that the information gathered 
by the various collection agencies, such as CIA, NSA, and DIA, is not 
``owned'' by those agencies, and those agencies not control decisions 
about who should get access to collected information?
    Answer. Yes.
    Question. Should the DNI, rather than individual agencies, decide 
who should get access?
    Answer. Yes. The DNI should have benefit of input from each of the 
data ``owners,'' but the rule sets should be established by the DNI.

                            HOMELAND DEFENSE

    Question. With the establishment of the positions of USD(I), the 
Assistant Secretary of Defense for Homeland Defense, and the Commander 
of Northern Command, DOD has been fundamentally reorganized to better 
address the critical homeland defense mission.
    In your view, what challenges lie ahead in integrating the 
intelligence capabilities of DOD with those of the Department of 
Homeland Security and other associated Federal, State, and local 
agencies?
    Answer. I believe there are two dimensions to this question.
    One relates to intelligence support to military forces which are 
under the aegis of Northern Command (NORTHCOM). The relationship is 
straightforward and conventional--that is, intelligence support is 
rendered to NORTHCOM and its subordinate components, just as it would 
be rendered to any other COCOM.
    The second relates to the support which may be rendered to the 
Department of Homeland Security, or some component of the Department, 
directly. This is primarily, but not exclusively, an issue for the 
agencies. In NGA's case, for example, virtually all of its products, 
services, and solutions traditionally employed in a foreign 
intelligence context can be applied in a domestic context. Two issues 
are relevant here: (1) legal constraints on domestic surveillance, and 
(2) potential competition for resources. It has been my experience that 
both concerns are manageable.
    I think the Department of Homeland Security has a very important 
role to play, to broker, validate, and prioritize requirements from all 
of its constituents, particularly at the State and local levels. I do 
not believe it prudent to allow, for example, direct tasking of 
Intelligence Community components by State and local officials. There 
must always be a ``lead Federal agency'' to vet and sponsor such needs.
    Question. Does DOD's existing requirements process adequately 
support the establishment of intelligence requirements for the homeland 
defense mission?
    Answer. I do not have current information about how the process 
works now, but from my NGA experience, I thought it worked well.
    Question. As a former Director of the NGA, do you believe that you 
had sufficient latitude and resources to assist domestic authorities in 
emergency situations, such as existed in the aftermath of the September 
11 attacks.
    Answer. Yes, I did.
    Question. Are you satisfied that there is adequate oversight within 
the DOD on the domestic activities of the U.S. NORTHCOM?
    Answer. I have no evidence to the contrary, but if confirmed, would 
be vigilant to concerns about domestic surveillance activities.

                             TRANSFORMATION

    Question. Secretary Rumsfeld established transformation of the 
Armed Forces to meet 21st century threats as one of his highest 
priorities.
    In your judgment, what is the role of intelligence in the overall 
transformation process?
    Answer. Intelligence is a key enabler for transformation. I can 
think of no military capability or doctrinal tenet that would not be 
heavily dependent on and influenced by intelligence.
    Question. Specifically for the Defense Intelligence Community, what 
do you believe transformation should mean?
    Answer. I believe there are two meanings implied in this question. 
As indicated in the response to the previous question, intelligence is 
a key enabler for transformation writ large. While it is enabling 
department-wide transformation, intelligence must transform itself as 
well. This means transformation of policies, tactics, techniques, 
procedures, and technology.
    Question. In your view, what transformational capabilities does our 
Intelligence Community require?
    Answer. One could name a long list; some illustrative examples 
follow: We should ultimately acquire the global ``god's eye'' and 
``god's ear'' collection and surveillance capability for foreign 
intelligence needs. We need a robust integrated ground architecture 
that is secure, consistent, reliable, and has multi-level security. We 
need much more automation to relieve analysts of tedious ``grunt'' work 
that can be done by computers (e.g. automatic target recognition, 
automatic feature extraction, to name two specific cases I am familiar 
with). We must improve collaboration and information sharing both 
internally within the Intelligence Community, and externally with 
partners and customers. We need to vastly improve language capability 
and proficiency.

                THE ORGANIZATION OF DEFENSE INTELLIGENCE

    Question. The defense intelligence structure has evolved over the 
years, most recently with the creation of the Defense Human 
Intelligence Service in 1996, the establishment of the NGA in 1997, the 
formation of the Counterintelligence Field Activity (CIFA) in 2002, the 
creation of the Joint Functional Component Command for Intelligence, 
Surveillance, and Reconnaissance, and the evolution of the Joint 
Intelligence Centers at the COCOMs into Joint Intelligence Operations 
Centers (JIOCs).
    In your view, is the current organizational structure of defense 
intelligence the best structure to support military and national 
intelligence needs?
    Answer. The current organization of the Intelligence Community and 
its Defense components are a product of a historical evolution which 
traces its heritage from the National Security Act of 1947 through the 
Intelligence Reform and Terrorism Prevention Act (IRTPA) of 2004. 
Whether what we have is the ``best,'' is heavily dependent on the 
criteria for ``best.''
    I would observe that if one were to start with a blank piece of 
paper and were tasked to design the optimum Intelligence Community for 
the environment of today and the future, we would probably end up with 
another design. But, ``we are where we are.''
    Question. If not, what changes would you recommend to the current 
structure?
    Answer. I have given this matter a great deal of thought. At this 
point in time, I have no major recommendations for change. Both the DNI 
and the USD(I) are works in progress. I think we would be well served 
to allow them to mature before mandating yet more change.
    In the future, however, it may be worth considering the stand-up of 
a cabinet-level Department of Intelligence, composed of the major 
``engines of intelligence.'' Such a construct would provide products, 
services, and solutions in common to a wide variety of customers. Even 
after the IRTPA, we still have the basic organizational framework that 
has been built piecemeal since l947. I believe that intelligence is so 
crucial to the safety and security of this Nation, that it could merit 
the stature and prominence represented by a full-fledged cabinet 
department. This is not to suggest that, under such a construct, the 
other cabinet departments--most notably DOD--would not still require 
robust organic intelligence capabilities. However, I see no prospect 
that such a radical change is feasible, so it is not something I would 
recommend at this time.
    Question. Do you think that DOD and the ODNI are effectively 
integrated operationally?
    Answer. No, I do not; this is not a criticism necessarily, but 
rather a function of a new arrangement and new relationships maturing. 
As stated previously, both organizations are works in progress. I have 
every confidence that integration, coordination, and collaboration will 
continue to improve.
    Question. Do you believe that the ODNI is organized properly to 
enable efficient joint planning and execution of intelligence 
operations and activities?
    Answer. I believe that neither the ODNI nor the USD(I) staffs are 
organized optimally to promote efficient collaboration and 
coordination. Both need restructuring; if confirmed, I intend to 
pattern the USD(I) staff after his reorganized DNI staff. Doing so will 
facilitate staff interactions and promote synchronization.
    Question. For example, is there an analog to the DOD JIOC under the 
DNI? Should there be?
    Answer. One component of the DNI structure, the NCTC, is ``JIOC-
like.'' Otherwise, the DNI's missions and responsibilities are not 
``operational'' in the classic DOD sense.

               HUMAN INTELLIGENCE AND SPECIAL OPERATIONS

    Question. Former Secretary of Defense Rumsfeld emphasized enhancing 
the human intelligence capabilities of the DOD both within the Defense 
HUMINT Service and Special Operations Command (SOCOM). Military forces, 
and especially SOCOM forces, have been assigned the mission to conduct 
military operations against terrorists abroad. This mission requires 
that the military be prepared to act against terrorist targets in a 
wide variety of situations abroad. It has been asserted that DOD 
personnel have deployed to foreign countries and engaged in 
counterterrorism activities without the approval or knowledge of the 
cognizant Ambassador or the Chief of Station. Concerns have also been 
raised that some military activities constitute covert actions that 
under the law require a presidential finding.
    Do you think that military activities in the areas of intelligence 
gathering, preparation of the battlefield, and the use of force, 
conducted pursuant to the counterterrorism mission, constitute covert 
actions under the law?
    Answer. The term ``covert action'' is statutorily defined to mean 
``an activity or activities of the United States Government to 
influence political, economic, or military conditions abroad, where it 
is intended that the role of the United States will not be apparent or 
acknowledged publicly. . . .'' Conversely, as I understand it, Congress 
also statutorily stipulated certain categories of activities which 
would not constitute covert action. They include acquiring 
intelligence, traditional counterintelligence, traditional operational 
security, traditional military activities, or administrative 
activities. Clandestine activities--a term that is not statutorily 
defined--are those activities conducted in secret, but which are, in an 
intelligence context, passive in nature. For me, the crucial 
distinction lies in whether an activity is ``passive'' (which is the 
case with intelligence activities) or ``active'' (which is the case 
with covert action). It is my understanding that military forces are 
not conducting ``covert action.''
    Question. Do you think that the (U.S.) ambassador in a country 
should always be informed of all military activities taking place in 
that country?
    Answer. Yes. If confirmed, I would only have jurisdiction over DOD 
intelligence activities. My cardinal rule when I was the Director of 
DIA was that all military intelligence activities under DIA's purview 
would be made known to, and approved by, the respective Ambassador and 
Chief of Station. I would, if confirmed, continue that policy.
    Question. Do you think that coordination and cooperation among the 
DOD, the State Department, and the ODNI have been adequate regarding 
sensitive military operations abroad?
    Answer. I am not in a position to answer this question 
authoritatively. If confirmed, I would certainly be attentive to this 
concern.
    Question. To your knowledge, what is the Department's policy with 
respect to acknowledging that the U.S. military personnel involved are 
members of the U.S. Armed Forces in the event that they are taken into 
custody by a foreign nation in which they are conducting these 
activities?
    Answer. Assuming ``these activities,'' are ``clandestine'' (as 
opposed to ``covert actions''), the operative DOD policy is to 
acknowledge the affiliation of military members in such a circumstance.
    Question. What are your views regarding the recommendation of the 
9/11 Commission that DOD take over responsibility for all so-called 
paramilitary missions?
    Answer. I am personally opposed to this proposal. I think it would 
remove an ``arrow from the quiver'' of potential capabilities available 
to the President.

               NEED FOR INDEPENDENT INTELLIGENCE ANALYSIS

    Question. Intelligence analysis should be independent and free of 
political pressure that it reach a certain conclusion, including a 
conclusion that fits a particular policy preference.
    If confirmed, would you ensure that all intelligence analysts 
within DOD, including those who may be seconded to offices that are not 
part of the defense intelligence structure, is free from such pressure?
    Answer. Yes. Absolutely.
    Question. What is your position on whether intelligence officers 
and analysts should be able to testify to Congress on their 
professional conclusions regarding a substantive intelligence issue 
even if those views conflict with administration positions?
    Answer. I have hard-won personal experience in this regard. 
Accordingly, I have a very strong conviction that intelligence officers 
should be free to speak their mind before Congress. This is regardless 
of whether their views comport with administration positions or not, so 
long as it is made clear that such views are personal, not those of the 
administration.

            CONTROL OF INTELLIGENCE AGENCIES WITHIN THE DOD

    Question. The IRTPA of 2004 granted the DNI control over the 
preparation and execution of the NIP budget and tasking of national 
intelligence operations. However, IRTPA also contained language 
asserting that nothing in the act should be construed as to impair the 
authorities of secretaries of cabinet departments, and the Secretary of 
Defense has delegated ``direction, control, and authority'' over the 
national intelligence organizations within DOD to the USD(I)--the 
highest form of authority in the executive branch.
    What are your views on the balance of authorities accorded in IRTPA 
to the DNI and to cabinet secretaries, particularly the Secretary of 
Defense?
    Answer. In a sense, they appear to be evenly balanced. On one hand, 
Title I of the IRTPA ascribes extensive authorities over the 
Intelligence Community to the DNI; on the other hand, section 1018 
stipulates that these authorities are to be executed ``. . . in a 
manner that respects and does not abrogate the statutory 
responsibilities of the heads of departments. . . .''
    Question. What are your views on the extent of the grant of 
``authority, direction, and control'' to the USD(I) over DOD national 
intelligence organizations?
    Answer. The phrase ``authority, direction, and control'' is the 
highest expression of executive branch power and influence. The 
dictionary definitions of these terms are quite inclusive and 
encompassing. In practice, however, policies, practices, and procedures 
have evolved since l947 so that the exercise of ``authority, direction, 
and control'' virtually always comports with the requirements of the 
(now) DNI, based upon mutual understanding. I have served as Director 
of two Combat Support Agencies, which also have national intelligence 
responsibilities. There is an art form to balancing both obligations. 
The more time I have spent in the Intelligence Community, the more I 
have come to appreciate the importance of both personal relationships 
among senior leaders and the value of established ways of conducting 
business. These factors are almost as influential as statutes and their 
interpretation.
    Question. What type of relationship would you strive to establish, 
if you are confirmed, with the DNI to ensure that DOD interests in 
national intelligence are satisfied, that DOD adequately assists the 
DNI in discharging his responsibilities, and that the defense 
intelligence agencies are properly managed?
    Answer. If confirmed, I intend to explore with Vice Admiral 
McConnell potential formal institutional arrangements that would serve 
to clarify the relationship between the DNI and the USDI so that not 
only DOD and DNI interests--but those of the Nation--are better served.
    Question. Do you believe that the relationships, authorities, 
processes, and structures in place between DOD and the DNI provide 
sufficient influence for the DOD to ensure that the intelligence 
capabilities DOD will need in the future to prepare for and conduct 
military operations will be developed and acquired through the NIP?
    Answer. Yes. There is a long history of the NIP (in its previous 
form as the National Foreign Intelligence Program) satisfying military 
requirements. I have seen no degradation in this practice. The USD(I) 
is in a strong position to influence such support. Moreover, the newly 
created MIP in DOD is much more coherent, and a better parallel to the 
NIP, than was the combination of the predecessor program, the Joint MIP 
and the aggregation of what was called Tactical Intelligence and 
Related Activities. These two programs (the NIP and MIP) provide a 
congruent programmatic basis for improved intelligence capabilities.

                           PERSONNEL SECURITY

    Question. The Washington Post reported on February 7, 2007, that 
Admiral McConnell, in testimony before the Senate Select Committee on 
Intelligence, expressed the intention to alter the rules governing the 
granting of security clearances to U.S. citizens who are naturalized or 
born here to immigrant parents. Under existing rules, it is difficult 
for these citizens to gain security clearances if any of their family 
members live abroad or are not citizens. This hurdle makes it very 
difficult for the Intelligence Community to hire American citizens with 
much-needed language skills, cultural knowledge, and physical 
characteristics to assist in the war on terrorism, 
counterproliferation, counternarcotics, and other critical missions.
    Do you agree with the view attributed to the DNI regarding the need 
to re-examine the rules and processes for clearing U.S. citizens in 
light of the pressing needs of the Intelligence Community for the 
skills our citizens possess?
    Answer. Yes.

                         JOINT DUTY ASSIGNMENTS

    Question. The Goldwater-Nichols Act mandated joint-duty tours for 
military officers as a condition for promotion and instituted processes 
intended to ensure that personnel serving in joint-duty billets are 
promoted at the same or higher rates as those who did not serve in 
joint-duty assignments. This measure was enacted in order to raise the 
quality of personnel serving in joint assignments, such as on the Joint 
Staff, COCOM staffs, and the Office of the Secretary of Defense, and to 
instill a joint perspective in the officer corps across the Armed 
Forces. By any measure, this requirement has paid enormous dividends. 
The 9/11 Commission urged adoption of similar requirements for 
Intelligence Community civilian personnel, to achieve the same goals--
improving the quality of staff serving in community positions, and 
nurturing joint perspectives. The IRTPA of 2004 did not actually 
mandate the adoption of this reform, and, to date, the Office of the 
DNI has not acted on the 9/11 Commission recommendation.
    The new DNI has indicated a strong desire to establish an ironclad 
joint tour requirement for Intelligence Community civilians. If 
confirmed, would you support this decision?
    Answer. Philosophically, I am in agreement with Intelligence 
Community civilian employees diversifying their professional horizons 
through joint duty. I spent 9 years on active duty after the enactment 
of the Goldwater-Nichols Act, and experienced (endured) the evolution 
of the rules governing joint duty, particularly which billets 
``counted'' for joint duty credit, and which ones didn't. As in all 
such initiatives which potentially have a profound impact on employees' 
careers and lives, the ``devil will be in the details'' of 
implementation. I would hope that the components of the Intelligence 
Community are granted some latitude to manage this program in a 
``crawl-walk-run'' manner to achieve the objective.
    Question. Would you support legislation in this area if the DNI 
judges it to be necessary?
    Answer. Yes, but I would hope the program could be developed and 
executed without legislation.

                         ACQUISITION OVERSIGHT

    Question. The National Defense Authorization Act for Fiscal Year 
2003 and the IRTPA of 2004 mandated that Milestone Decision Authority 
(MDA) could no longer be delegated to, or exercised by, the Director of 
the NSA. Congress took this action because of serious deficiencies in 
NSA's systems acquisition capabilities that prevented the Agency from 
effectively modernizing SIGINT capabilities to meet new threats. Since 
Congress first acted to stimulate better executive branch oversight of 
NSA systems acquisition, NSA's transformation program, Trailblazer, has 
been terminated because of severe management problems, and its 
successor, Turbulence, is experiencing the same management deficiencies 
that have plagued NSA since at least the end of the Cold War.
    What is your view of the seriousness of the acquisition management 
problems at NSA?
    Answer. While I have some familiarity with acquisition issues at 
NSA, I am not sufficiently informed about current challenges to comment 
authoritatively.
    Question. What are your views about the ability of current NSA 
personnel to effectively execute a transformation program?
    Answer. I have the highest regard for the NSA workforce. I have no 
doubt about their ability to execute a transformation program.
    Question. Do you think that the Turbulence activity should remain 
disaggregated and not managed as an integrated major program?
    Answer. Again, I am not informed about the Turbulence activity. If 
confirmed, I would intend to become familiar with it, and then, in 
consultation with Director, National Security Agency and the DNI, 
decide what action should be taken.
    Question. If confirmed, what actions would you take to strengthen 
oversight of NSA's transformation efforts?
    Answer. If confirmed, I would first determine what oversight is 
currently underway, and work with the DNI staff to establish a 
coherent, systematic, and joint DNI/USDI (in conjunction with USD(AT&L) 
oversight program.

               COUNTERINTELLIGENCE FIELD ACTIVITY (CIFA)

    Question. The DOD has established an organization called the CIFA. 
CIFA is reportedly charged with protecting military facilities and 
personnel and carrying out intelligence collection, analysis, and 
operations within the United States.
    Do you believe that it is appropriate that DOD has such an 
organization (CIFA)?
    Answer. Yes. It is imperative that foreign collection efforts 
against the Department are aggressively detected, and then neutralized. 
CIFA fulfills the counterintelligence mission at the strategic (in 
contrast to the operational or tactical) level. This is an inherent 
responsibility of the Department which I feel cannot be abrogated. It 
is equally important that the proper balance be struck between the 
counterintelligence mission on one hand, and the protection of civil 
liberties on the other.
    Question. What is the appropriate division of functions and 
responsibilities between such a DOD organization and the National 
Counterintelligence Executive (NCIX) within the Intelligence Community?
    Answer. CIFA's focus is on DOD equities, whereas the NCIX has a 
broader, national perspective. NCIX promulgates broad strategies; 
reaches out to industry, academic institutions, and other non-military 
entities; and it oversees the counterintelligence functions in other 
government agencies and departments. If confirmed, I will look for 
opportunities to promote closer collaboration between CIFA and the 
NCIX.
    Question. Are you comfortable with CIFA reporting to the USD(I)?
    CIFA is responsible for the TALON data base that was found to have 
inappropriately included information on U.S. persons, including reports 
on peaceful civilian protests and demonstrations inside the United 
States, in contradiction of Executive orders and the rules published by 
DOD.
    Answer. Yes, I am comfortable with the current reporting chain, but 
if confirmed, I will explore other options.
    Question. What are you(r) views on the steps that should be taken 
to preclude the possibility that CIFA or any other DOD organization 
deals inappropriately with information on U.S. persons?
    Answer. I am strongly supportive of protecting civil liberties. The 
history of the Intelligence Community is replete with instances of 
abuse of civil liberties--well intended, but abuse nonetheless. The 
requisite elements of a program to prevent such abuse are: (1) clearly 
articulated and widely publicized policies; (2) training, both basic 
and refresher; and (3) a mechanism to verify compliance independently. 
I am given to understand that in the instant case, corrective actions 
have been taken to preclude the collection and inclusion of such 
inappropriate information. If confirmed, I would plan to familiarize 
myself in more detail with the corrective actions taken and underway, 
and their effectiveness. I will be particularly interested in 
determining how compliance is monitored independently.

                    ROLE IN ACQUIRING SPACE SYSTEMS

    Question. If confirmed, what role do you anticipate you would have 
in the requirements process for, and in oversight of, the acquisition 
of space systems, including space systems for which milestone decision 
authority rests with either the Under Secretary of Defense for 
Acquisition, Technology, and Logistics or the DOD Executive Agent for 
Space?
    Answer. I am not informed on exactly which space reconnaissance 
systems are under the milestone decision authority of either of these 
officials. If there are such systems under their purview, I would, if 
confirmed, expect to be heavily involved in these management processes, 
particularly the exercise of milestone decision authority.

                        INSPECTOR GENERAL REPORT

    Question. On February 9, 2007, the DOD Inspector General (IG) 
issued a report titled ``Report on Review of the Pre-Iraqi War 
Activities of the Office of the Under Secretary of Defense for 
Policy.'' That report concluded that the Office of the Under Secretary 
of Defense for Policy (OUSD(P)) ``developed, produced, and then 
disseminated alternative intelligence assessments on the Iraq and al 
Qaeda relationship, which included some conclusions that were 
inconsistent with the consensus of the Intelligence Community, to 
senior decisionmakers.'' The DOD IG concluded that these actions were 
``inappropriate,'' and that ``this condition occurred because the 
OUSD(P) expanded its role and mission from formulating Defense Policy 
to analyzing and disseminating alternative intelligence.''
    What are your views of the IG's report?
    Answer. I have read both the DOD IG report on this matter and the 
OUSD(P) rebuttal. I think this episode is a regrettable example of 
apparent lack of trust in the analyses performed by the Intelligence 
Community. I note that this occurred before the establishment of the 
Office of the Under Secretary of Defense for Intelligence. If 
confirmed, and if such a situation were to arise again, I would hope to 
be involved, to ensure that: (1) policymakers and decisionmakers are 
fully supported; (2) that all potential intelligence alternatives are 
thoroughly explored and vetted; and (3) that any differing viewpoints 
are made known to all involved parties.
    As a general comment, I am strongly opposed to any 
misrepresentation or distortion of intelligence.
    Question. If you are confirmed, how would you ensure that DOD 
intelligence elements, as distinct from policy offices, engage in 
intelligence activities?
    Answer. The first priority in this context is vigilance. 
Intelligence officials must be alert to attempts by those outside the 
Intelligence Community to engage in intelligence analysis. There are, 
however, no empirical criteria for determining whether intelligence is 
being distorted or misrepresented, or is simply being tested and 
subjected to alternative points of view. One man's legitimate ``red 
team'' is another man's inappropriate intelligence activity. To some 
extent, this is in the realm of beauty (or lack thereof) being in the 
eye of the beholder.

                 DOD INTELLIGENCE INTERROGATION POLICY

    Question. DOD Directive Number 3115.09 assigns the USD(I) 
responsibility for providing oversight of intelligence operations, 
detainee debriefings, and tactical questioning, and ensuring overall 
development, coordination, approval, and promulgation of DOD policies 
and implementation of plans related to intelligence interrogations, 
detainee debriefings, and tactical questioning.
    Do you support the policy set forth in the July 7, 2005, memorandum 
issued by Deputy Secretary of Defense England stating that all relevant 
DOD directives, regulations, policies, practices, and procedures must 
fully comply with Common Article 3 of the Geneva Conventions?
    Answer. Yes. I fully support this policy.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes. I fully support these standards.
    Question. If confirmed, will you ensure that all DOD policies 
promulgated and plans implemented related to intelligence 
interrogations, detainee debriefings, and tactical questioning comply 
with the Common Article 3 of the Geneva Conventions and the Army Field 
Manual on interrogations?
    Answer. If confirmed, I will ensure that all relevant DOD policies 
and plans comply with applicable U.S. law and international 
obligations, including Common Article 3.
    Question. Do you share the view of the Judge Advocates General that 
standards for detainee treatment must be based on the principles of 
reciprocity, in which we treat our own detainees may have a direct 
impact on the manner in which U.S. soldiers, sailors, airmen, or 
marines are treated, should they be captured in future conflicts?
    Under DOD Directive Number 3115.09, the USD(I) is responsible for 
developing policies and procedures, in coordination with the Under 
Secretary of Defense for Acquisition, the DOD General Counsel, and the 
appropriate DOD components, to ensure that all contracts in support of 
intelligence interrogation operations include the obligation to comply 
with the standards of DOD Directive Number 3115.09 and exclude 
performance of inherently governmental functions in accordance with DOD 
Directive 1100.4 and that all contractor employees are properly 
trained.
    Answer. I strongly hold the view that the manner in which the 
United States treats detainees may well impact how captured U.S. 
soldiers, sailors, airmen, or marines are treated in future conflicts. 
I believe that the Department's policies must be documented 
accordingly.
    Question. What do you believe is the proper role of contractors in 
intelligence interrogation operations?
    Answer. I believe it is permissible for contractors to participate 
in detainee interrogations, as long as they comply with the policies 
and guidance which govern DOD military and civilian interrogators. As I 
understand it, DOD contractors who conduct government-approved 
interrogations must be properly supervised and closely monitored 
throughout the interrogation process, and may not, themselves, approve, 
supervise, or monitor interrogations.
    Question. What steps would you take, if confirmed, to ensure that 
intelligence interrogation operations are performed in a manner 
consistent with the requirements of the manpower mix and that 
contractors involved in such operations do not perform inherently 
governmental functions?
    Answer. If confirmed, I would ensure compliance with relevant DOD 
directives.
    These require that DOD contractors be trained and certified to the 
same standard as DOD military and civilian interrogators, that contract 
interrogators be properly supervised when conducting interrogations, 
and that contractors do not approve, supervise, or oversee 
interrogations. I would review, approve, and ensure coordination of all 
DOD component plans, policies, orders, directives, and doctrine related 
to intelligence interrogation operations, to include the role of 
contractors.

                        INTERROGATION TECHNIQUES

    Question. An August 25, 2006, report by the DOD Office of the 
Inspector General titled ``Review of DOD-Directed Investigations of 
Detainee Abuse'' included the following finding: ``The USD(I) in 
coordination with the Commander, U.S. Joint Forces Command, should 
develop and implement policy and procedures to preclude introducing 
survival, escape, resistance, and evasion (SERE) techniques in an 
environment other than training.''
    Do you agree with the recommendation of the DOD IG that SERE 
techniques should not be introduced into an environment other than 
training?
    Answer. Yes. I fully agree with the DOD IG's recommendation and 
support the U.S. Joint Forces Commander's policy prohibiting Joint 
Personnel Recovery Agency personnel from participating in any aspect of 
the intelligence interrogation process.
    Question. Has this finding been implemented by the USD(I)?
    Answer. I am given to understand that the USD(I) fully supports the 
U.S. Joint Forces Commander's policy prohibiting Joint Personnel 
Recovery Agency personnel from participating in any aspect of the 
intelligence interrogation process. The OUSD(I) has requested that U.S. 
Joint Forces Command restate this prohibition in its interrogation 
policy.
    Question. If confirmed, would you ensure that policies and 
procedures are developed and implemented to preclude the introduction 
of SERE techniques in an environment other than training?
    Answer. If confirmed, I will ensure that the Commander of U.S. 
Joint Forces Command interrogation policy prohibits Joint Personnel 
Recovery Agency personnel from participating in any aspect of 
intelligence interrogation operation.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the USD(I)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents.
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

                Question Submitted by Senator Mark Pryor

                          INFORMATION SHARING

    1. Senator Pryor. Lieutenant General Clapper, what policies would 
you plan to implement to secure a more effective information sharing 
relationship to prepare State and local first responders to a terrorist 
event or natural disaster?
    General Clapper. As a result of my experience on the Gilmore 
Commission, as well as my time as Director of National Geospatial-
Intelligence Agency (NGA), I have become a strong proponent of sharing 
as much information as possible with first responders, within the 
constraints of law. If confirmed, I would work with the Director of 
National Intelligence (DNI) and the appropriate officials of the 
Department of Homeland Security and the Office of Information Sharing 
Environment to promote more timely and pervasive sharing of 
intelligence-related information to this constituency. As well, I would 
ensure that any requirements that Northern Command has in this area 
would be addressed.
                                 ______
                                 
             Question Submitted by Senator James M. Inhofe

                        OPEN SOURCE INTELLIGENCE

    2. Senator Inhofe. Lieutenant General Clapper, when you were 
Director of the NGA, you were a champion for using open source 
information, including commercial imagery to support the intelligence 
mission. Given the changing nature of the threats we face and the 
availability of open source information, do you plan to continue the 
work you did at NGA to encourage and expand the use of open source data 
within the broader defense intelligence mission? The committee is aware 
of agency initiatives to enrich classified information with open 
source, but unfortunately they have suffered from inconsistent funding 
and support.
    General Clapper. If confirmed, I would most definitely emphasize 
the utility and more pervasive use of open source information in the 
broader defense intelligence context. If a DOD Coordinator of Open 
Source information has not been designated, I would move to so 
designate someone at a senior level to serve as the parallel with the 
DNI's Director of Open Source.
                                 ______
                                 
    [The nomination reference of Lt. Gen. James R. Clapper, 
Jr., USAF, (Ret.), follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 29, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    James R. Clapper, Jr., of Virginia, to be Under Secretary of 
Defense for Intelligence, vice Stephen A. Cambone.
                                 ______
                                 
    [The biographical sketch of Lt. Gen. James R. Clapper, Jr., 
USAF, (Ret.), which was transmitted to the committee at the 
time the nomination was referred, follows:]
  Biographical Sketch of Lt. Gen. James R. Clapper, Jr., USAF, Retired
    James R. Clapper, Jr., has devoted over 4 decades of service to the 
Nation in the profession of intelligence--in the military, in industry, 
in civil service, and in education.
    He has the distinction of having served as director of two national 
intelligence agencies for a total of over 8\1/2\ years--the Defense 
Intelligence Agency (DIA) 1991-1995, and the National Geospatial 
Intelligence Agency (NGA) 2001-2006.
    He retired as a Lieutenant General in 1995, after a 32-year career 
in the United States Air Force. His assignments prior to his 4 years as 
Director of DIA almost exclusively focused on intelligence and included 
the Chief of Air Force intelligence during Operations Desert Shield/
Desert Storm and as (another singular distinction) Director of 
Intelligence for three combatant commands: United States Forces, Korea, 
Pacific Command, and Strategic Air Command. He previously commanded an 
airborne Signals Intelligence (SIGINT) unit in combat, a national-level 
scientific and technical intelligence center, and an Air Force SIGINT 
Wing. He served 2-year-long combat tours during the Southeast Asian 
conflict; during the second, he flew 73 combat support missions in EC-
47s over Laos and Cambodia.
    During his 6 years in industry, he was an executive in three 
successive professional services companies, where his focus was on the 
Intelligence Community as a client. He both led business units and 
served as a subject matter expert, expanding business and increasing 
revenue in all three cases.
    He has served as a consultant and advisor to Congress and the 
Departments of Defense, Energy, and Homeland Security, and as a member 
of many government panels, boards, commissions, and advisory groups. He 
was a member of the Downing Assessment Task Force which investigated 
the Khobar Towers bombings in 1996, and was vice chairman of a 
congressionally-mandated commission chaired by former Governor Jim 
Gilmore of Virginia on the subject of homeland security. He has 
testified in Congress numerous times, and in Federal court as an expert 
witness on intelligence tradecraft.
    He hold's a bachelor's degree in government and politics from the 
University of Maryland, a master's degree in political science from St. 
Mary's University in San Antonio, TX, and an honorary doctorate in 
strategic intelligence from the Joint Military Intelligence College, 
where he taught as an adjunct professor. He now occupies the 
Intelligence and Security Alliance Chair at Georgetown University's 
School of Foreign Service, as Distinguished Professor of Military 
Intelligence.
    His military awards include two Defense Distinguished Service 
Medals, the Air Force Distinguished Service Medal, and a host of other 
United States military and foreign government awards and decorations. 
His civilian awards and recognition include designation as one of the 
Top 100 Information Technology Executives by Federal Computer Week 
Magazine in 2001 and receipt of the NAACP National Distinguished 
Service Award. He has received three National Intelligence 
Distinguished Service Medals, the Department of Defense Distinguished 
Civilian Service Award, the Coast Guard's Distinguished Public Service 
Award, and the Presidentially-Conferred National Security Medal. He was 
the 2006 winner of the prestigious William Oliver Baker award in 
recognition of lifetime achievement in the National Intelligence 
Community.
    He now is the Senior Vice President/Chief Operating Officer of DFI-
International Government Services, Washington, DC.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Lt. Gen. James 
R. Clapper, Jr., USAF, (Ret.), in connection with his 
nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    James Robert Clapper, Jr., (Nickname: Jim).

    2. Position to which nominated:
    Under Secretary of Defense for Intelligence.

    3. Date of nomination:
    29 January 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    14 March 1941; Fort Wayne, IN.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Susan Terry Clapper.

    7. Names and ages of children:
    Jennifer Coakley, 40; Andrew Clapper, 35.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    B.A., University of Maryland, 1959-1963 (5 June 1963).
    M.A., St. Mary's University, San Antonio, TX 1965-1970 (31 May 
1970).

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Sep. 95-Mar. 97: Executive Vice President, Vredenburg, 1835 
Alexander Bell Drive, Ste. 400, Reston, VA.
    Mar. 97-Nov. 98: Principal, Booz-Allen-Hamilton, 8283 Greensboro 
Drive, McLean, VA.
    Nov. 98-Aug. 01: Vice President, Intelligence Programs, SRA 
International, 4350 Fair Lakes Court, Fairfax, VA.
    Sep. 01-Jun. 06: Director, National Geospatial Intelligence Agency 
(NGA), 4600 Sangamore Road, Bethesda, MD.
    Jun. 06-Sep. 06: Special Assistant to the Deputy Director, NGA, 
4600 Sangamore Road, Bethesda, MD. (CIA Retiree Transition Program).
    Aug. 06-Present: INSA Distinguished Professor of Intelligence, 
Security Studies Program, Edmund A. Walsh School of Foreign Service, 
3600 N St., NW, Washington, DC.
    Oct. 06-Present: Senior Vice President & COO, DFI International, 
Government Services, 1717 Pennsylvania Ave, NW, Ste. 1200, Washington, 
DC.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None currently.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Member, Board of Directors, GeoEye, 21700 Atlantic Blvd., Dulles, 
VA.
    Member, Board of Directors, 3001 Inc., 10300 Eaton Place, Suite 
340, Fairfax, VA.
    Member, Senior Advisory Board, Sierra Nevada Corp, 444 Salomon 
Circle, Sparks, NV.
    Senior Advisor, Center for Strategic & Intl Studies (CSIS), 1800 K 
Street, NW, Washington, DC, (unpaid).
    Advisor, U.S. Geospatial Intelligence Foundation, 2325 Dulles 
Corner Blvd, Ste. 500, Herndon, VA, (unpaid).

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    United States Geospatial Intelligence Foundation--Advisor to the 
Board of Directors.
    Intelligence & National Security Alliance--Member.
    Armed Forces Communications Electronics Association--Member of 
Intelligence Committee.
    National Cryptologic Foundation--Member.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Principal Military Decorations and Awards:
      Defense Distinguished Service Medal (2)
      Air Force Distinguished Service Medal
      Defense Superior Service Medal
      Legion of Merit (3)
      Bronze Star Medal (2)
      Defense Meritorious Service Medal
      Air Force Meritorious Service Medal
      Air Medal (2)

    Civilian Awards and Recognition:
      National Security Medal (Presidentially-conferred)
      National Intelligence Distinguished Service Medal (3)
      DOD Distinguished Civilian Service Award
      Coast Guard Distinguished Public Service Award
      NAACP Meritorious Service Award
      William Oliver Baker Award for lifetime achievement in 
intelligence

    Foreign Decorations:
      Republic of Korea, France, Norway, and Canada

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Have written or by-lined many articles which were ``in-house'' 
professional treatises--nothing for the broader public domain.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    As Director of NGA, I gave many briefings, speeches, talks, and 
presentations. I do not have copies.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                             James R. Clapper, Jr..
    This 6th day of February, 2007.

    [The nomination of Lt. Gen. James R. Clapper, Jr., USAF 
(Ret.), was reported to the Senate by Chairman Levin on March 
28, 2007, with the recommendation that the nomination be 
confirmed. The nomination was confirmed by the Senate on April 
11, 2007.]
                              ----------                              

    [Prepared questions submitted to S. Ward Cassells, M.D., by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. No, only to enhance it where we might find an opportunity 
to do so.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. N/A.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of Defense for Health Affairs (ASD(HA))?
    Answer. The ASD(HA) assists the Under Secretary of Defense for 
Personnel and Readiness and the Secretary of Defense in promoting and 
safeguarding the health of military personnel and their families, 
retirees, and others eligible for DOD health benefits. The role is 
primarily one of setting health policies, in consultation with other 
ASDs, the Services, and their Surgeons General, and Service ASDs. These 
health policies include deployment health, both physical and mental. 
The ASD also has an important, though less direct, role in health 
education and research. Health Affairs is directly responsible for 
managing TRICARE, and the Uniform Services University.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. As a practicing doctor, teacher, researcher, university 
administrator, and Army Reserve colonel with two tours of duty in the 
last 2 years, including most recently in Iraq, I have an appreciation 
of the breadth, complexity, and urgency of DOD health issues. As I have 
had limited management experience I will need the guidance of DOD 
civilian and military leaders, and input from the troops and their 
families. In addition I will ask for help from colleagues at Center for 
Disease Control (CDC), National Institute of Health (NIH), Food and 
Drug Administration (FDA), Department of Health and Human Services 
(HHS), State, the World Health Organization, Red Cross, industry, and 
others who can help. In particular, I will seek guidance from Senate 
and House Members and their staffs whose expertise and dedication I 
have come to appreciate in working with them on military health 
research since 1995.
    As a doctor, as a patient, I know that good medical care is 
comprehensive, coordinated, compassionate, efficient, preventive, and 
respectful of patient's privacy, time, and authority.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the ASD(HA)?
    Answer. Yes, I need to learn more about DOD regulations and 
finances, in order to accelerate decisionmaking so as to get benefits 
and answers to injured troops and other beneficiaries.
    Question. If confirmed, what duties and functions do you expect 
that the Secretary of Defense would prescribe for you?
    Answer. In addition to force protection, readiness, deployment 
health, and TRICARE, the Secretary of Defense may call on the ASD(HA) 
for advice on civil/military operations and global health issues. The 
DOD has played an increasingly frequent and important role in disaster 
readiness and response, both in the U.S. and abroad. Health care is a 
critical part of this effort, and indeed the provision of health care 
and assistance in capacity-building (education and facilities) is 
proving to be a bridge to peace and a currency of diplomacy.
    Question. In carrying out your duties, how will you work with the 
following:
    The Under Secretary for Personnel and Readiness,
    The Under Secretary of Defense (Comptroller),
    The Assistant Secretaries for Manpower and Reserve Affairs of the 
Services,
    The ASD for Reserve Affairs,
    The Surgeons General of each of the Services,
    The TRICARE Lead Agents,
    The TRICARE Support Contractors,
    The Designated Providers' Chief Executive Officers (i.e., Uniformed 
Services Treatment Facility CEOs),
    Beneficiary Groups,
    Department of Veterans Affairs (VA), and
    Centers for Medicare and Medicaid Services.
    Answer. If confirmed as ASD(HA) I will have the opportunity and 
duty to work closely with, and learn from, leaders in all the offices 
and organizations listed above. I know many of them, and will request 
meetings with the others, in person. Like most people, I have learned 
that most problems arise from poor communication. Success requires 
regular, frank meetings with partners and those we serve, consensus on 
near-term and long-term goals, simple, fair and transparent processes, 
and accountability. I am not embarrassed to ask for help, but also not 
afraid to stand up for the soldiers, sailors, airmen, marines, and 
their families.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the ASD(HA)?
    Answer. The office is tasked, with continuously improving the 
quality of health services while also reducing inefficiencies. The 
challenges range from finding better ways to prevent and treat 
battlefield injuries to better ways to assess and treat subtle, 
complex, important conditions like post-traumatic stress and head 
injuries. Also important is our readiness for potential threats such as 
epidemic diseases, especially as troops increasingly work and live in 
areas such as Asia and Africa where emerging infectious diseases often 
arise. Other important issues are safety (in the hospital, at work, and 
at home), obesity, and autism.
    Administrative issues include the challenges of joint medical 
command, BRAC, the role of outsourcing, interaction with other DOD 
offices, Department of Health and Human Services, Department of 
Homeland Security, and the Veterans Administration. Finally, the office 
must assist with the recruitment and retention of dedicated and 
talented health care personnel. Every satisfied military medical 
professional can be encouraged to tell our story, safety in the 
hospital at work and at home, obesity and autism.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. My limited experience to date with DOD health care needs 
input from a broader group of providers, administrators, and especially 
beneficiaries. I need to review the data the office has gathered, ask 
for briefings, and get out in the field to ask questions and see for 
myself. But it seems likely that there are opportunities for improving 
services such as care of Post-Traumatic Stress Disorder (PTSD) and 
traumatic brain injuries (TBI), disability determination, extremity 
injuries and prosthetics. There may also be ways of improving, 
simplifying, and safeguarding electronic medical records, and making 
them portable--for care by private physicians or by the Veterans 
Administration. It may also be important to do more to foster 
innovation, to encourage and empower self-care, and to protect 
whistleblowers.
    Question. What do you consider to be the most serious problems 
confronting the ASD(HA)?
    Answer. The most important immediate issue is identifying the 
extent, causes, and correction of the problems that have been brought 
to light at Walter Reed Army Hospital. I also understand that the 
important work of the Mental Health Task Force has recommendations due 
in May, and the task force on the future of military health care will 
have their work completed late this year.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. Several commissions are addressing these issues and if 
confirmed I will do all I can to assist them and to be guided by their 
reports. If confirmed I plan to be a strong influence in ensuring our 
wounded warriors and families are well cared for after they receive 
care and in ensuring swift implementation of improvements recommended.

                               PRIORITIES

    Question. If confirmed, what broad priorities would you establish 
for policy and program actions which must be addressed by the ASD(HA)?
    Answer. The rank order of priorities of the problems noted above, 
and others I may be become aware of, needs to be determined once I have 
had the opportunity--if confirmed--of studying the issues from the 
inside.

                    WALTER REED ARMY MEDICAL CENTER

    Question. Concern over outpatient facilities and care for severely 
wounded servicemembers at Walter Reed Army Medical Center has been a 
highly-visible issue over the past several weeks.
    Based on your experience, do you believe the issues raised about 
care and facilities at Walter Reed could be occurring at other military 
medical hospitals or facilities?
    Answer. I do not know. I visited Walter Reed's main hospital to see 
patients and attend conferences several times over the past 2 years but 
did not see Building 18. What I did see there, and at the naval 
hospitals at Bethesda, Balboa, and Portsmouth, and Army hospitals such 
as Beaumont and Evans, and at our facilities in Hawaii, Bangkok, Cairo, 
Doha, and Kuwait, and when I was a patient in Ibn Sina (the 10th Combat 
Support Hospital) in Baghdad, is excellent inpatient care and satisfied 
patients. The areas were clean but not deluxe, or even very cheering. I 
did not see or hear about the very real, intolerable problems in 
Building 18. That shows how management issues and priorities can be 
missed unless you look systematically, and listen carefully.
    I did experience firsthand some errors and delays with my benefits, 
but not the unacceptably slow, complex, and stingy disability system 
outlined in recent press accounts. Ongoing patient and family surveys, 
a vigilant press, staff reports up the chain of command and outside it 
when justified, are critical to our providing the care our troops 
deserve.
    Question. If confirmed, what actions would you take to examine care 
for the wounded from the battlefield until discharge from DOD medical 
treatment?
    Answer. Battlefield care is excellent. I know that from the data, 
from what I have seen as a doctor and as a patient in Iraq. The 
civilian trauma and public health doctors are learning from lessons we 
learned in Iraq and Afghanistan. Still, it requires vigilance, 
innovation, and incentives for continuous improvement.
    Question. What would you expect your role to be in support of 
ongoing study of these issues by the Presidential Commission and the 
DOD Independent Review Group?
    Answer. To assist them in any way they request, and if not, then to 
ask to be involved. It is important for the groups to hear from my 
office, if confirmed, to provide perspective, and for us to hear from 
them.

                                TRICARE

    Question. If confirmed, what would be your short-term and long-term 
goals for TRICARE?
    Answer. TRICARE is the best health plan in the country and it must 
only get better. My plan would be to look for opportunities to make the 
link stronger between the direct care system and our vast purchased 
care network even stronger in order to make the benefit better, more 
seamless, of higher quality, and look for opportunities to make it more 
affordable. One of TRICARE's strengths is that it is very inexpensive 
for the beneficiary compared to other health plans. I believe we need 
to look for ways to leverage the best public and private sector ideas 
to make our system an example the beneficiaries and our Nations' 
taxpayers can be proud of.
    Question. If confirmed, how would you strengthen the partnership 
between the Department and the TRICARE support contractors that is 
necessary for the successful delivery of health care within the TRICARE 
Program?
    Answer. I will have a wholehearted commitment to TRICARE. In the 
past few years, key performance measures for TRICARE have improved 
dramatically--for example, claims processing and customer satisfaction. 
Enrollment, especially for our retiree population has also increased. A 
key feature of my commitment will be to seek further improvements in 
the program, building on its many successes. There may be even more 
opportunities to learn from commercial health plan experience by 
building even stronger bonds with our many contract partners, to 
coordinate TRICARE with other Federal health care programs, and to 
belter capitalize on the unique capabilities of military medicine for 
the good of the Nation and the world.
    Question. Do you have any views on how health care support 
contracts could be restructured to incentivize effective disease 
management programs and cost-efficient delivery of health care 
services?
    Answer. It is a good example of how the opportunities with the 
private sector can be leveraged. Future TRICARE contracts will continue 
the triple option health benefits package. We will continue to use an 
outcome-based approach where the government states the desired outcomes 
and the bidders are to determine how to meet these outcomes using, 
where possible, commercial best business practices. The timeframes for 
implementation of the coniracts should assume that no significant 
benefit changes will occur during the procurement cycle. While the 
contracts will be designed, awarded, and administered centrally, 
regional oversight of health care will be delegated to the Regional 
Directors affirming the principle that health care is best administered 
and monitored locally. In structuring our support to the military, we 
cannot diminish the capabilities of the direct care system--and those 
skills that only military medical providers can and should do.
    Question. There continues to be concern expressed by TRICARE 
beneficiaries about the adequacy and availability of health care 
providers in some areas of the country. While health care support 
contracts have access standards and timeliness requirements to ensure 
beneficiaries have access to appropriate providers within a reasonable 
period of time, this does not always happen. In addition, many 
beneficiaries who choose the TRICARE Standard option report a lack of 
availability of health care providers willing to accept new TRICARE 
patients.
    Answer. From all reports, the TRICARE contracts are working well 
and have very robust networks. If a local problem exists, I will work 
to understand what it is and take steps to ensure network adequacy is 
improved.
    Question. What recommendations, if any, do you have for improving 
the number and adequacy of providers under the TRICARE program?
    Answer. I would begin by asking why some doctors are reluctant to 
contract with TRICARE. As a recent TRICARE provider at the University 
of Texas, I think the contracts can be simplified. I would take 
aggressive steps to appeal to health systems in the States through both 
our networks managers, our TRICARE regions, and through our Governors. 
I would also appeal to professional associations to help educate those 
provider networks on the service they could be providing for our 
Nations' men and women in uniform. We may also be able to do more to 
recognize and welcome new providers, such as presentations of awards by 
local servicemembers. In general, the average participation rate of 
providers accepting the TRICARE reimbursement rate is 96 percent. Our 
managed care support contractors are aggressively recruiting additional 
providers to join our networks. Where there are areas that are lacking 
certain specialties, the contractor together with the TRICARE Regional 
Offices initiates an action plan to address the concerns of those 
providers in the locality. In addition, TMA is in the process of 
implementing legislation to provide for locality-based reimbursement 
rates for those Services that are lacking in certain areas. This 
authority will improve health care access for all beneficiaries by 
targeting providers who are currently not participating in the TRICARE 
program.

                    COMMITMENT TO MILITARY RETIREES

    Question. By law, DOD and the military departments must provide 
health care through the Military Health Care System to those who have 
retired from the uniformed services and their eligible family members.
    What is your view of the importance of delivering health care 
services to military retirees and their family members in ensuring the 
overall readiness of U.S. Forces?
    Answer. The commitment to delivering the highest quality care to 
all of our over 9 million beneficiaries is paramount. The retired 
servicemembers and their families, which is the vast majority of those 
we care for, are an integral part of clinical experience base that our 
providers and staff require in our Medical Treatment Facilities and in 
our Graduate Medical Education programs to develop, maintain, and 
advance their clinical skills.
    Of course, military facility health care is a finite resource. The 
entitlement to payment for civilian health care services under TRICARE, 
now available to retirees over 65 as well as under 65, provides 
assurance of comprehensive coverage for our retirees even when military 
providers are not available.

                      RESOURCING MEDICAL BENEFITS

    Question. Last year, DOD proposed an initiative referred to as 
``Sustain the Benefit'' aimed at achieving savings in the Defense 
Health Program. This proposal would have phased in significant 
increases in TRICARE fees for military retirees under the age of 65 and 
increased copayments for prescriptions filled in retail drug stores for 
all categories of beneficiaries. A substantial portion of the projected 
savings were based on the assumption that retirees would elect to use 
their civilian employer's or some other health care plan in lieu of 
TRICARE.
    If confirmed, would you support initiatives designed to save costs 
by discouraging retired military personnel from using their military 
health benefit?
    Answer. The increasing cost of health care for the department is of 
great concern as it reduces its ability to fund other high priority 
capabilities. Congress directed the Task Force on the Future of 
Military Health Care which is now well into its deliberations and I 
have reviewed their charter. A key area of their review is the health 
care cost share structure between the beneficiaries and the government 
and I will carefully review their recommendations as we develop future 
initiatives along with other key stakeholders in the Department, in 
Congress, and with our coalitions and associations.
    Question. Do you have other ideas to achieve savings in the Defense 
Health Care Program?
    Answer. As I have reviewed the Military Healthcare System, there 
may be continuing efforts we can take to find cost savings. I will 
continue to work to improve the large TRICARE contracts to assure we 
are getting best value and, I believe, as all other health care systems 
have found, that we can incrementally improve our pharmacy benefits 
management to assure we are providing the most effective drugs at the 
best possible price. I also think that advancing the concept of 
``shared services'' between the Services' medical departments and the 
Health Affairs/TRICARE Management Activity, as outlined in Secretary 
England's governance improvement memo makes sense. I see value in 
making incremental, sensible, and reasonable steps to improve 
governance, provides an excellent opportunity to reduce administrative 
duplication, create more effective partnerships and services, and be 
more efficient.
    I strongly believe that faster and more effective implementation of 
our electronic health record, Armed Forces Health Longitudinal 
Technology Application, can also save time and money and improve 
quality. Included in my initiatives will be to promote incentives for 
prevention and disease management.
    Question. Adequate financing of the Defense Health Program has long 
been an issue. The President's budget request for fiscal year 2008 
includes $486.3 million in efficiency savings from military hospitals. 
The Surgeons General have testified that they cannot achieve savings of 
this magnitude. These so-called ``efficiency wedges'' have been used 
over the past 2 years by the Department in an attempt to force savings 
in military hospitals.
    Do you feel that these efficiency wedges remain an acceptable 
financing approach?
    Answer. If confirmed, I will examine the financing of the Defense 
Health Program in detail to determine the best way forward and the 
mechanisms we can use to assure that we adequately fund all elements of 
our system. I strongly believe that efficiencies can be promoted if we 
provide incentives for operating jointly, more efficiently, and with 
higher quality.
    Question. What steps would you take, if confirmed, to more 
accurately project the cost of, and appropriately resource, both the 
military hospitals and private sector care contracts within the Defense 
Health Program?
    Answer. If confirmed, I fully understand my responsibilities to 
oversee the Defense Health Program appropriation. Since 2001, the 
Military Health System has not required emergency supplemental 
appropriations or reprogrammings (with exception of hurricane recovery, 
global war on terror, the war on terror, and Avian Influenza)--which I 
believe clearly demonstrates that we have benefited from congressional 
and departmental financial support. Looking to the future, I do 
understand that in the fall of 2006, the department as well as Office 
of Management and Budget and external actuarial experts, did a thorough 
analysis of the private sector care requirements for the Department. I 
will review that effort. In addition I will continue to evaluate the 
Services' financial requirements to make sure that they are provided 
adequate resources to accomplish their complex and demanding missions.

      CONVERSION OF MILITARY MEDICAL BILLETS TO CIVILIAN POSITIONS

    Question. Conversion of certain military billets to civilian 
positions has been a key objective of the Department's transformation 
objectives. The committee has been concerned that in the area of 
medical services, which are needed in wartime and peacetime, such 
conversions could place both the quality and the effectiveness of 
military health care including care of the battlefield wounded, at 
risk.
    What is your understanding of the extent to which civilian 
substitution for military medical billets has taken place in the Army, 
Navy, and Air Force?
    Answer. In all efforts to become more efficient we must balance 
appropriate numbers of providers and medical personnel against the 
mission. We must also ensure a proper mix of specialists and military 
providers and support personnel. At the same time we need to avoid 
waste while maintaining depth in our forces for handling contingencies. 
It is my understanding that the military-to-civilian conversion effort 
was a consequence of a long and detailed examination, called 
appropriately, the Medical Readiness Review of the military medical 
force structure and billets. This review was done with the military 
departments as well as other Office of the Secretary of Defense 
activities. The analysis included an rigorous assessment of the cost of 
conversions, availability of civilian replacements with proper 
requisite skills and credentials, and the potential impact on the 
quality of and access to healthcare. Experience has shown that the Army 
successfully converted a considerable number of its military medical 
billets in the 1990s and today their civilian staffing at the MTFs 
often exceeds 50 percent civilians. The Navy and Air Force have done 
fewer conversions in the past. Currently, the secretaries of the 
military departments are certifying their fiscal year 2008 conversions 
to Congress in accord with the provisions of the National Defense 
Authorization Act for Fiscal Year 2007. If confirmed, I will oversee 
this conversion process, in collaboration with the service surgeons to 
assure that we do this effectively.
    Question. If confirmed, will you examine the extent to which 
military-to-civilian conversions played a role in the understaffing of 
critical support positions at Walter Reed Army Medical Center, as well 
as a revaluation of conversion goals for all three Service medical 
departments?
    Answer. I am unaware of any shortage in critical clinical positions 
but if confirmed I will work closely with the Army Surgeons General to 
assure that any such issues are effectively and immediately addressed.

         MILITARY HEALTH PROFESSIONAL RECRUITING AND RETENTION

    Question. DOD is facing severe shortages of military medical 
professionals needed for its peacetime and wartime missions. The 
Department relies on a combination of bonuses and incentives to recruit 
and retain military health care professionals to provide care to 
military members and their families.
    What are your views on the adequacy of existing bonus and pay 
incentive programs for both Active and Reserve components?
    Answer. There is a delicate balance between being a steward of the 
taxpayers' money, in which role we must justify every increase in 
spending with proof that the increase will have a payback, versus being 
a champion for the uniformed health care providers. As we analyze the 
effects the Warfight war has on our professional population, we need to 
be able to use effective, competitive, and fair financial tools to be 
able to fill our gaps in the Active and Reserve Forces. The importance 
of balancing efforts to recruit and retain the right numbers of 
qualified individuals professionals to meet mission requirements is 
enormous. Having less than the optimum number of uniformed health care 
professionals may result in increased private sector care costs and 
lower medical force morale. It is important to properly manage 
recruiting, pay, and retention programs to ensure appropriate balance 
for Department missions and beneficiary needs. As a provider in the 
Reserve Force, I will bring a unique and current perspective to this 
issue.
    Question. Based on your service in the Army Reserve, do you have 
any recommendations about the effectiveness of incentives for medical 
personnel to join the Reserve Forces?
    Answer. I am not aware of barriers to recruiting and retention, 
especially in my current status. If those circumstances arise and I see 
shortfalls or barriers, I will work to understand what they are and 
take action to fix them.

             SEAMLESS TRANSITION OF DISABLED SERVICEMEMBERS

    Question. Recent hearings in both the House and Senate have 
examined the challenges faced by servicemembers who are undergoing 
disability evaluation and transitioning from the DOD to the Department 
of Veterans' Affairs (VA) for health care services.
    What are the critical elements necessary for a seamless transition 
of health services from one agency's responsibility to another?
    Answer. The critical elements for a seamless transition of health 
services from one agency to another are: a full understanding of 
medical care capabilities within both agencies by all medical providers 
involved; clear communications of the transition plan between providers 
in each agency and with the patient and patient's family; timely 
transfer of all pertinent medical records before or at the time of 
transfer of the patient; and, ongoing communication after the transfer 
of the patient between the medical providers in each agency and with 
the patient and patient's family.
    Question. How can the transition for disabled servicemembers 
between DOD and the VA be improved, especially in the area of health 
care?
    Answer. Improvements in the transition of health care between DOD 
and VA can be achieved by early and concise communications to 
servicemembers and their families about DOD and VA benefits and 
programs they are entitled to based on their military status and 
service. Two efforts would facilitate the early and concise 
communication we desire. The first would be to establish a program that 
assigns a specific DOD-VA team comprised of medical staff from both DOD 
and VA to support each patient and his/her family during the transition 
process. The second initiative would be to establish a single, user 
friendly disability evaluation system that is evidence based, medically 
endorsed, and most importantly, consistent with the civilian disability 
system.
    Question. Do you have any views about improvements that can be made 
quickly to the Physical Disability Evaluation System, specifically the 
medical evaluation board process?
    Answer. DOD's Physical Disability Evaluation System is designed to 
evaluate an individual's loss of capability to function once the 
medical condition has reached maximum benefit from continued medical 
care. The period of time necessary to make that assessment varies 
widely from person to person, and is dependent on individual rates of 
healing and response to restorative therapies. The medical evaluation 
board process requires that maximum benefits of medical care be 
completed. A change that would streamline the process would require 
care providers to make an early, initial medical prediction of 
capability after maximum benefits of medical care are complete, and 
once the patient's medical condition is stable, then proceed with the 
disability benefits determination based on that assessment. This would 
require frequent re-evaluation of medical capability as the healing 
process is continuing, and possible redetermination of benefits.

                         TRAUMATIC BRAIN INJURY

    Question. In Iraq and Afghanistan, our troops are facing the threat 
of Improvised Explosive Devices (IED). Because of improved body armor, 
troops are surviving IED blasts, but frequently suffer TBI from the 
concussive effects of the blasts.
    What tools are needed by medical personnel to adequately diagnose 
and treat TBI on the battlefield, and do you think the Services have 
the capabilities in Iraq and Afghanistan?
    Answer. Our medical personnel are doing a superb job identifying 
and treating the severe TBI incidents on the battlefield. Far forward 
surgical care is saving lives, and neurosurgical care is a significant 
contributor. In August 2006 we started using the Military Acute 
Concussion Assessment (MACE), along with a clinical practice guideline, 
to help identify and document mild and moderate TBI. Educating troops 
and their leadership about the importance of this evaluation as soon as 
possible after even a mild injury, as well as educating medical 
providers on this new tool, is our current challenge.
    Question. What is your understanding of the ability of medical 
personnel to diagnose and treat TBI in the continental United States 
medical facilities?
    Answer. One constant in medicine is ``to make a diagnosis, the 
doctor must consider it.'' Our medical personnel are very aware of the 
potential for TBI in our personnel, both at home and on the 
battlefield. There is no easy, definitive test, (such as a blood test) 
available today to quantify the nature and extent of injury associated 
with TBI. However, we are extending the use of the MACE as a tool used 
throughout the DOD system, and it will certainly help identify patients 
who had TBI and determine if they still have symptoms. The majority of 
mild TBI does not require specific treatment other than time to heal, 
but we now believe we must document the incident and an assessment of 
acute signs and symptoms as close to the time of injury as possible. 
Treatment for persistent symptoms is available in our neurology 
clinics.
    Question. Should DOD have a comprehensive plan for prevention, 
diagnosis, and treatment of TBI, and if confirmed, what actions would 
you take to develop such a plan?
    Answer. DOD is implementing a comprehensive plan to identify and 
treat TBI. Use of the MACE whenever a servicemember is dazed, stunned, 
or knocked out will document these events and trigger education for the 
patient and medical follow-up. DOD will be asking individuals if they 
experience any trauma to the head on the annual Periodic Health 
Assessment. These questions will also be added to the Post Deployment 
Health Assessment and the Post Deployment Health Reassessment. 
Understanding what the causes of these injuries are will direct a 
comprehensive preventive program.
    Question. What is your understanding of the adequacy of the DOD 
physical evaluation system and its ratings to fairly address the 
conditions that result from TBI?
    Answer. The DOD Physical Evaluation Board evaluates impaired 
function and rates individuals against established criteria for 
disability compensation. When that disability is severe, the system 
works very well. As we shape a comprehensive DOD/VA system to assess, 
diagnose, and treat mild and moderate TBI, we may need to modify the 
disability evaluation system.

                     POST-TRAUMATIC STRESS DISORDER

    Question. Army leaders testified recently that some military 
doctors are reluctant to diagnose servicemembers with PTSD because of 
their concern that it could stigmatize them, resulting in possible harm 
to careers.
    What is your understanding of the scope of the problem of 
diagnosing and treating PTSD in the Armed Forces?
    Answer. The biggest problem with diagnosing and treating PTSD in 
the Armed Forces is the same as that in the civilian world--having the 
individuals recognize they have a problem and to then seek care. DOD is 
educating its personnel about PTSD. DOD also assesses servicemember 
concerns and symptoms of PTSD and related mental health issues upon 
return from deployments and again 3 to 6 months later. Individuals who 
identify symptoms are medically evaluated and referred for further 
diagnosis and treatment if needed. PTSD and other mental health 
conditions are treatable.
    Question. If confirmed, what actions would you take to ensure that 
health care providers are appropriately trained and guided in 
diagnosing PTSD?
    Answer. DOD and the VA have developed clinical practice guidelines 
for the diagnosis and treatment of PTSD. Continuing Medical Education 
is a requirement for all practicing physicians and DOD has many 
educational resources available to not only ensure our providers have 
the expertise to diagnose PTSD, but that our servicemembers and their 
families will be educated.
    Question. What steps would you take, if any, to help destigmatize 
PTSD and other mental health conditions?
    Answer. The first step to destigmatize PTSD and other mental health 
conditions is education of our military population. A major next step 
would be to validate that those who seek and receive mental health care 
are successful in continuing their military careers. Concerns about 
loss of status with peers, leaders, and family members, and loss of 
military career are the two major causes for individuals not seeking 
care for PTSD and other mental health conditions.
    Question. The Army's Mental Health Advisory Team (MHAT) has made 
three separate assessments over the past several years detailing the 
immediate effects of combat on mental health conditions of U.S. 
soldiers deployed to Iraq. The most recent study, MHAT III, found that 
multiple deployers reported experiencing higher levels of acute stress, 
and that overall levels of combat stressors are increasing. Some 
reports allege that the DOD is deliberately underdiagnosing PTSD due to 
a shortage of resources.
    Answer. Acute stress and combat stress are very different 
conditions from PTSD. The fact that DOD has been consistently 
evaluating the mental health concerns and symptoms of its deployed 
forces is important. Military departments have deployed mental health 
providers in theater to provide the prevention and treatment needed for 
combat stress and for mental health conditions. Resources have not 
driven mental health care availability. Identifying needs for mental 
health providers has driven the provision of mental health care 
capabilities.
    Question. Based on your experience, do you believe that PTSD is 
underreportcd and underdiagnosed?
    Answer. I believe PTSD is underreported by the individuals who have 
it because of the stigma in our society about mental health. I also 
believe that it is therefore under diagnosed because these individuals 
are not seen by medical providers. However, I do believe that medical 
providers are appropriately diagnosing PTSD, perhaps even over-
diagnosing PTSD, because the diagnostic criteria have not changed for 
over a decade.
    Question. If confirmed, how would you assess whether we currently 
have the resources needed to address the mental health needs of 
servicemembers during deployment in Iraq and Afghanistan and after 
their return?
    Answer. I would assess the adequacy of mental health resources by 
reviewing the data from assessments in theater and after deployment 
(post-deployment health assessment and post-deployment health 
reassessment), and by reviewmg the medical care being provided in-
theater and after return home in our DOD system and the VA system. 
Additionally, I would survey the servicemembers and their families for 
their evaluation of the adequacy of our programs to meet their mental 
health needs.
    Question. Do you believe that the DOD disability ratings fairly 
address the disabilities that result from PTSD?
    Answer. The DOD disability rating system is designed to evaluate an 
individual's functional capability. A diagnosis of PTSD requires that 
the individual have some impairment, along with other symptoms. With 
early diagnosis and treatment, it is believed that the impairment will 
resolve, while other symptoms may persist or become intermittent. 
Therefore it is difficult to definitively respond if the system 
``fairly'' addresses disabilities that may no longer be present.

                      RESEARCH ON GULF WAR ILLNESS

    Question. Both DOD and VA have conducted research on Gulf War 
Illness stemming from health concerns of veterans.
    What is your assessment of the evolution of research in this field 
to date?
    Answer. More research has been done to understand the health 
concerns of veterans of the Gulf War than on any other war. The recent 
Institute of Medicine review of the medical literature from this 
research has stated that while there is no unique syndrome that has 
been identified, the Gulf War veterans experience a wide spectrum of 
symptoms at a rate nearly double that of military personnel who were on 
active duty at that time but did not deploy. The medical challenge is 
to better understand the causes of symptoms in our patients, 
particularly for the subjective symptoms.
    Question. What, in your view, are the promising areas for further 
research, especially for the treatment of symptoms resulting from 
neurological damage due to chemical exposures?
    Answer. Medical science is developing a better understanding of 
brain function and brain physiology due to better tools and better 
understanding from research that has been ongoing in the fields of 
mental health, traumatic brain injury and the spectrum of neurological 
diseases like Alzheimer's, Parkinson's disease, amyolotrophic lateral 
sclerosis, and others. Research focused on relating symptoms to 
specific brain functions, insults, or neurotrarismitter changes would 
have major importance, not only to Gulf War veterans, but to humanity.
    Question. If confirmed, what approach would you take to assess the 
core biomedical research programs of DOD to ensure that the objectives 
and resourcing of such research is consistent with future potential 
threats to U.S. Forces?
    Answer. The core biomedical research programs in DOD are 
requirements driven, and those requirements are based on military 
unique issues. The governance of the biomedical research is through the 
Armed Services Biomedical Research Evaluation and Management Committee 
which the ASD(HA) co-chairs.

                      QUALITY OF DOD MEDICAL CARE

    Question. Please describe your knowledge of quality improvement 
programs in the civilian sector, and comment on how they would compare 
to military health care quality programs.
    Answer. Dr. Casscells, please comment herefrom 30 years of 
experience with quality improvement processes at university, community, 
and government hospitals, and health maintenance organizations, I have 
seen these processes improve. They work best where there are electronic 
medical records, and committed leadership that fosters a sense of 
teamwork and energy, not intimidation. From my limited (2 years) 
experience in Army Medicine I believe the process is taken very 
seriously. From my service on GE Healthcare's Advisory Board, I am keen 
to assist the Lean/Six Sigma initiative and process now underway at 
DOD.
    Question. If confirmed, what role would you take in the monitoring 
of quality and patient safety throughout the military health care 
system?
    Answer. There has been an increasing awareness of the need to 
improve the quality of care and patient safety in our medical 
facilities across the Nation. The Institute of Medicine's reports ``To 
Err is Human'' in 1999 and ``Crossing the Quality Chasm'' in 2001 
sounded the alarm regarding the scope of the problem and the 
opportunities for improvement. Improving Quality and Patient Safety 
have been high priorities for the health systems with which I have 
worked, and finding solutions to the problems we confront requires a 
multifaceted, team approach: Quality care begins with well-trained and 
qualified professionals who work together as a team. These 
professionals must be provided appropriate ancillary support services 
and facilities to create a safe ``environment of care'' focused upon 
the needs of patients and their families. We must have automated 
systems for documentation of care, surveillance, supply support, and to 
meet the information needs of the health care team. Periodic assessment 
of organizational programs and procedures by the Joint Commission and 
other certifying organizations is important. Finally, senior leaders 
must be committed to supporting health care quality and safety by 
establishing strategic objectives and providing the resources necessary 
to achieve them.
    I am aware that the military health system has been engaged in 
addressing quality and safety along with its civilian counterparts. 
Military professionals, graduate medical education programs and 
facilities also meet the same standards as those established for 
civilian sector professionals and organizations. If confirmed, I can 
assure you that providing high quality, safe health care for the men 
and women who serve, their families and all other beneficiaries of the 
Military Health System will be one of my highest priorities.

                            DENTAL BENEFITS

    Question. The committee has increasingly heard complaints that DOD 
dental benefits are less attractive than those offered by other 
employers. Also, DOD beneficiaries, especially members of the Reserve 
components, have shown a reluctance to use their dental benefits.
    If confirmed, what action would you take to evaluate the 
effectiveness of dental programs for the active duty, reservists, and 
retirees and their dependents?
    Answer. I would expect my staff to evaluate the benefit on an 
ongoing basis, including analysis of enrollment and utilization, and 
surveys of members to determine their satisfaction. I would expect to 
work with Congress to make any necessary changes to the program.

                  ROLE OF PHYSICIANS IN INTERROGATIONS

    Question. Under current DOD policies, a physician is authorized to 
participate in the interrogation of a detainee with the approval of the 
ASD(HA).
    If confirmed, what criteria would you use for deciding to allow a 
member of the medical profession to participate in interrogations?
    Answer. I have not yet been briefed on this issue. In the civilian 
sector, I am aware that law enforcement agencies often use medical 
professionals to assist them with their investigations. Medical 
professionals also assist the courts in assessing the mental health of 
those accused or convicted of crimes. However, I am not familiar with 
the current role of military medical professionals in interrogations. 
If confirmed, I will review the use of military medical professionals 
in interrogations.
    Question. National and international medical organizations have 
taken positions in opposition to DOD policy on this matter.
    Do you think that DOD should have a different ethical standard for 
its physicians than those adopted by recognized national and 
international bodies?
    Answer. I believe that military physicians and other medical 
professionals should adhere to the same high level of ethical standards 
that we expect of our physicians in civilian practice. Based upon my 
experience as an Army reservist, and having observed military providers 
firsthand in Iraq, I can tell you that military medical professionals 
are exceptionally high in both clinical quality and ethical standards. 
I am also aware that even national and international professional 
bodies may disagree about what constitutes the ethical course of action 
for some of the more controversial ethical issues facing healthcare 
professionals, such as support for individuals at the end of life, 
certain types of medical research, or involuntary treatment of the 
mentally ill or others trying to harm themselves.
    Question. If so, why?
    Do you think that DOD's current policy needs to be re-evaluated?
    Answer. If confirmed, I will review DOD's policy on use of medical 
professionals in interrogations.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the ASD(HA)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Questions submitted by Senator Robert C. Byrd

                   FIXING THE MILITARY MEDICAL SYSTEM

    1. Senator Byrd. Dr. Casscells, you are about to take charge of a 
bureaucracy that many would describe as broken. Our service men and 
women, now more than ever, are depending on your leadership to put the 
military medical system on a new track. How do you intend to examine 
the operations of the elements under your office to make changes as 
appropriate?
    Dr. Casscells. In the past year, the Military Health System took 
several important steps in the multi-year transformation that will 
prepare our military forces and our military medical forces for the 
future. Our focus has been to develop greater joint capabilities and 
joint operations. I am committed to achieving jointness, 
interoperability, greater efficiency, improved outcomes, and world-
class education, research, and medical care.

    2. Senator Byrd. Dr. Casscells, what do you see as your greatest 
challenges?
    Dr. Casscells. First, we must ensure that our wounded warriors 
receive the care and treatment that they expect and deserve. The 
Department is aggressively addressing weaknesses and looks forward to 
considering recommendations of the various groups and task forces which 
are reviewing the system at present. Second, the Department faces a 
tremendous challenge with the growing costs and long-term 
sustainability of the Military Health System. We need important changes 
in our great health benefit program. TRICARE, to ensure a superior 
benefit for the long-term. We need the help and support of Congress to 
achieve this goal.

    3. Senator Byrd. Dr. Casscells, if you encounter resistance to 
making changes, are you prepared to report honestly to Congress about 
the problems that you encounter?
    Dr. Casscells. Yes. The Department is firmly committed to working 
closely and openly with Congress in order to protect the health of our 
servicemembers and to providing world-class health care to more than 9 
million beneficiaries.

    4. Senator Byrd. Dr. Casscells, there have been a number of efforts 
by the Under Secretary for Personnel and Readiness to reduce the cost 
of military medical functions. The Service Chiefs and the Surgeons 
General have testified that the first year cuts were difficult, but 
possible. They have also testified, however, that in the current and 
future years, these so called ``efficiency wedges'' will affect 
essential services. How are you going to deal with the pressures to 
reduce spending from your boss, an economist, and the medical needs of 
the individual soldiers?
    Dr. Casscells. The foremost responsibility that I share within the 
Office of the Secretary of Defense and Service Surgeons General is to 
provide quality care to the men and women of the Armed Forces and their 
families. No one in the Department believes we can measure the quality 
of care, or the compassion with which it is delivered by a financial 
yardstick alone. The Department, working with our beneficiary support 
activities and Congress, must continue to challenge itself to find 
innovative and effective solutions to excel in that stewardship.

    5. Senator Byrd. Dr. Casscells, the exchange of information 
regarding military and veterans' medical and service records between 
the Department of Defense (DOD) and the Department of Veterans Affairs 
(VA) has never been particularly good. It is a continuing source of 
problems for individual service men and women, and frustrating for 
their families as well. How do you intend to approach this issue, and 
what solutions do you propose to fix it?
    Dr. Casscells. I recognize that the programs and benefits earned by 
servicemembers could not be delivered without cooperation between DOD 
and VA in the area of information sharing. I am also aware of the 
concerns regarding the time it has taken to establish the desired level 
of interoperability, and the resulting frustrations of providers, 
servicemembers, and their families.
    In the last several years, DOD and VA have made impressive 
progress, and are leading the Nation in many ways in the sharing of 
electronic health information, but there is room for improvement. I 
intend to accelerate the efforts of DOD to achieve an even greater 
degree of electronic health information sharing with VA.
    In the short term, I will focus on our most critically injured 
servicemembers by ensuring that the VA Polytrauma Centers receiving 
inpatient transfers from Walter Reed Army Medical Center, the National 
Naval Medical Center, and Brooke Army Medical Center also receive the 
radiology images and medical records for these patients electronically.
    Another immediate focus will be ensuring the data we capture 
electronically in theater on injured and ill servicemembers is being 
made available to the VA for patients that present to VA for care. This 
will include information on inpatient and outpatient pharmacy and 
allergy data, laboratory and radiology results, and encounter notes.
    I will also focus on including more data in the current bi-
directional sharing of health information between DOD and VA for shared 
patients. My aim is to share data at the most critical points first, 
such as, the DOD medical records to the VA Polytrauma Centers, and then 
to leverage these efforts, and accelerate the extent of electronic 
health information sharing DOD and VA-wide.
    I also intend to personally monitor, and be engaged in, to the 
extent necessary, the efforts recently started to determine the right 
approach for a joint inpatient electronic medical record application 
for DOD and VA. Done right, this will support the needs of both 
Departments and help ensure continuity of care. The timing is right for 
an initiative such as this. With the full deployment of DOD's 
electronic health record--Armed Forces Health Longitudinal Technology 
Application--across the Military Health System accomplished, DOD is 
poised to begin focusing on incorporating documentation of inpatient 
care into AHLTA. My understanding is that VA needs to modernize the 
inpatient portion of their electronic health record. I will ensure we 
do not lose this opportunity to continue building on our significant 
achievements in sharing electronic health information across department 
lines in support of the men and women who serve and have served this 
country.
                                 ______
                                 
                Question Submitted by Senator Mark Pryor

                           AID ORGANIZATIONS

    6. Senator Pryor. Dr. Casscells, as the Assistant Secretary of 
Defense for Health Affairs, you will be working closely with 
organizations dedicated to our wounded soldiers, sailors, airmen, and 
marines. What is your understanding of organizations like the Army 
Emergency Relief and Air Force Aid Society, and what roles do you see 
them playing with Veterans Affairs issues?
    Dr. Casscells. The Army Emergency Relief and the Air Force Aid 
Society are two incredibly beneficial organizations. Both are privately 
funded, non-profit organizations that exist to help with the emergency 
financial needs, such as food and rent, of their respective Service 
active-duty personnel, retirees, and family members. Because of the 
legal ramifications, I do not see a direct link with them in the 
Department's interface with the VA. However, in the course of advising 
personnel on making a transition to veteran status, the existence of 
such organizations would certainly be present in the discussion, 
especially in dealing with short-term financial issues.
                                 ______
                                 
    [The nomination reference of S. Ward Casscells, M.D., 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 February 26, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    S. Ward Casscells of Texas, to be Assistant Secretary of Defense, 
vice William Winkenwerder, Jr., resigned.
                                 ______
                                 
    [The biographical sketch of S. Ward Casscells, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

             Biographical Sketch of S. Ward Casscells, M.D.

    Samuel Ward Casscells III, was born March 18, 1952, in Wilmington, 
DE. He received the B.S. in biology cum laude from Yale in 1974, and 
the M.D. magna cum laude from Harvard Medical School in 1979, winning 
the Reznick Prize for his research with Nobel Laureate Bernard Lown, 
M.D.
    His residency in medicine was at the Beth Israel Hospital and 
Harvard Community Health Plan, and his cardiology fellowship at 
Massachusetts General Hospital, with a Kaiser Fellowship in clinical 
epidemiology at the Harvard School of Public Health.
    From 1985 to 1991, Dr. Casscells served in the Cardiology Branch at 
the National Institutes of Health, followed by a sabbatical year at 
Scripps Institutes of Medicine and Science in La Jolla, CA, working 
under Nobel Laureate Roger Guillemin, M.D., Ph.D.
    Dr. Casscells joined the University of Texas at Houston in 1992. 
From 1994 to 2000 he served as the Levy Professor and Chief of 
Cardiology at UT-Houston Medical School and Hermann (now Memorial 
Hermann) Hospital and Associate Director for Cardiology Research at the 
Texas Heart Institute/St. Luke's Episcopal Hospital. Dr. Casscells 
established the President Bush Center for Cardiovascular Health in 
1997. In November 2000 he was awarded the John Edward Tyson 
Distinguished Professorship of Medicine. In 2001 the university added 
the titles of Professor of Public Health and Vice-President for 
Biotechnology. In 2004 the Texas Heart Institute named him Director of 
Clinical Research.
    Dr. Casscells is primarily involved in patient care, teaching and 
research on vulnerable atherosclerotic plaque (detection and prevention 
of heart attack and stroke) with James T. Willerson, M.D. He was the 
first to identify influenza as a cause of heart attacks. In addition, 
he is known for his work in growth factors, web-based health education, 
disaster medicine, and the costs, ethics, and policy implications of 
new technologies.
    Dr. Casscells serves on the editorial boards of The American 
Journal of Cardiology, The Texas Heart Institute Journal, Health 
Leader, and The Journal of the Royal Society of Medicine. He formerly 
served on the board of The Journal of Vascular Medicine and Biology, 
and from 1993-2004 was Associate Editor of Circulation.
    He was a co-founder of Selective Genetics, Inc., and Volcano 
Corporation, and currently serves on the board of Volcano, and 
SpectraCell, Inc. He served on the board of Lifeline Systems, Inc., 
until its acquisition by Philips in 2006. He serves on advisory boards 
for GE Healthcare, Pepsi, GlaxoSmithKline, RediClinics, and Roche.
    His current nonprofit activities include board service at 
BioHouston, the Yes Preparatory School, and the Prostate Cancer 
Foundation.
    In 2004, Dr. Casscells established the Alliance for NanoHealth with 
Rice University, UT MD Anderson Cancer Center, Baylor College of 
Medicine, Texas A&M, and the University of Houston. He is also a 
director of the UTHSC-M.D. Anderson-G.E. Center for Advanced Biomedical 
Imaging.
    Dr. Casscells has served since 1992 on the Board of Directors or 
Advisory Board of the American Heart Association's Houston affiliate. 
He was President of the Houston Cardiology Society from 1995 to 1996. 
Dr. Casscells has also served on the boards of the Society of Vascular 
Medicine, the Association of Professors of Cardiology, and the 
University of Houston Law School's Institute of Health Law and Policy, 
and the International Center for Medical Technology. Since 1996 Dr. 
Casscells has been listed in Who's Who in Medicine, in Science and 
Engineering, . . . in Education, . . . in America, . . . in the world.
    In 1997, Dr. Casscells was elected to the Association of University 
Cardiologists, and in 2000 to the American Clinical and Climatological 
Association. In January 2001, Dr. Casscells was appointed to President 
Bush's Health Care Advisory Committee. In 2001, he received the first 
CIMIT award from Harvard Medical School, Massachusetts General Hospital 
and MIT. In 2002, he was named a Hero of the Flood by the Memorial 
Hermann Hospital. In 2004, he received the American Telemedicine 
Association's General Maxwell Thurman Award.
    The founding chairman of Defense of Houston, which won the 2002 
Best Practice Award from the U.S. Department of Health and Human 
Services, Dr. Casscells also leads the U.S. Army's T5 program (Texas 
Training and Technology against Trauma and Terrorism). He and his team 
have assisted in many major disasters from the Oklahoma City bombing 
and Tokyo sarin gas attack to Hurricane Katrina. In January 2005, he 
organized a tsunami relief effort and conducted a technology needs 
assessment in Phuket. Dr. Casscells has served on numerous local, 
State, and national commissions on biosecurity. In 2004, he established 
the UT-Zogby poll on health issues. He was the medical honoree of the 
2005 American Heart Association's Heart Ball in Houston.
    A colonel in the U.S. Army Reserve, Dr. Casscells was mobilized in 
2005 and assisted in the Army's response to Hurricanes Katrina and 
Rita, for which he was awarded the Army Achievement Medal. For guiding 
the Army's avian influenza preparedness, he received the Meritorious 
Service Medal. From August to December 2006, he served in Iraq as 
liaison to the U.S. Ambassador, Zalmay Khalilzad, receiving the Iraq 
Campaign Medal, Armed Forces Reserve Medal with M Device, and Joint 
Service Commendation Medal.
    He and his wife, Roxanne Bell Casscells, a leader in historic 
preservation, have three children, and are members of Christ Church 
Cathedral.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by S. Ward 
Casscells, M.D., in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Samuel Ward Casscells, M.D., (Col., USAR).

    2. Position to which nominated:
    Assistant Secretary of Defense for Health Affairs.

    3. Date of nomination:
    February 26, 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    March 18, 1952; Wilmington, Delaware.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Roxanne Bell Casscells.

    7. Names and ages of children:
    Sam, 04/18/92; Henry, 03/26/96; Lillian, 09/09/97.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Tower Hill School (Wilmington, DE), 9/1965-6/1970.
    Yale College (New Haven, CT), 9/1970-5/1974, B.S., cum laude.
    Harvard Medical School (Boston, MA), 7/74-05/79, M.D., magna cum 
laude.
    Beth Israel Hospital (Boston, MA), 7/79-5/83, residency in Internal 
Medicine (Primary Care Track) and board certification.
    Massachusetts General Hospital (Boston, MA), 7/82 to 06/85, 
Cardiology Fellowship and Board Certification.
    National Heart, Lung, and Blood Institute (National Institutes of 
Health, Bethesda, MD), 6/85-6/91, Senior Staff Fellow, Chief of 
Clinical Service, then Senior Investigator.
    Whittier Institute (Scripps Institutes of Medicine and Biology, La 
Jolla, CA), 6/91-6/92, Molecular biology fellowship.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    University of Texas Health Science Center at Houston, 6431 Fannin, 
Houston, TX, 1992-current.
    Chief of Cardiology (1994-2001).
    Vice President for Biotechnology (2001 to present).
    John E. Tyson Distinguished Professor of Medicine (1999 to 
present).
    Professor of Public Health (2001-present).
    Director, Clinical Research, Texas Heart Institute (2004-present).

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    1985-1992  Senior Investigator, Cardiology Branch, National Heart, 
Lung, and Blood Institute
    1992-1998  Training Mentor-NIH Grant ``Molecular and Cellular 
Mechanisms of Heart Disease''
    1993-1998  Principal Investigator-NIH Grant ``Molecular Atherectomy 
Using FGF Receptors''
    1994-1998  Co-Investigator, NIH Grant ``Genetically Enhanced 
Cardiovascular Devices''
    1997-2003  Disaster Relief and Emergency Medical Services--DOD 
Grant #DAMD17-98-1-8002
    1998  NIH(NHLBI)/FDA panel on Biomarkers
    1997  FDA Advisory Panel on Circulatory Devices
    1998-2000  Houston Task Force on Counterterrorism (appointed by 
Mayor Lee Brown)
    2001  Bush-Cheney Transition Health Care Advisory Committee
    2001  Mayor Lee Brown's Medical Advisory Committee to the Emergency 
Medical Strike Team
    2004  Mayor Bill White's Homeland Security Policy Advisory Group
    2005  Delegate, White House Conference on Aging
    2005  Member, Congressman John Culberson's Science and Research 
Advisory Committee
    2005  Army mobilization for pandemic influenza readiness
    2006  Army deployment to Iraq

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    See SF278.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    American Heart Association
    American College of Cardiology
    City Tavern Club (Washington, DC)
    Texas Heart Institute Cardiac Society
    Christ Church Cathedral
    Association of University Cardiologists
    American Clinical and Climatological Association
    Metropolitan Club (Washington, DC)
    Reserve Officers Association
    Association of Military Surgeons of the U.S.
    Association of the United States Army
    Dancers
    Allegro
    Coronado Club
    Harvard Club of Houston
    Yale Club of Houston
    Aesculapian Club (Harvard Medical School)
    The American Legion
    (NB: excludes sports clubs)

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    2004  Finance Committee, Rep. John Culberson Campaign
    2004  Mayor Bill White's Homeland Security Policy Advisory Group
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.

------------------------------------------------------------------------
                                                     Year       Amount
------------------------------------------------------------------------
Bell, R. Christopher............................        2002      $1,000
                                                        2004         500
Bentsen, Kenneth Jr.............................        2002       3,000
Bonilla, Henry..................................        2003       1,250
                                                        2006         500
Brady, Kevin....................................        2004       1,000
Bush-Cheney 04..................................        2004       1,000
Primary Inc.....................................
Bush-Cheney 04 Compliance Comm..................        2004       1,000
Bush, George W (Bush for President).............        2000       1,000
Cornyn, John....................................        2002         750
                                                        2004         500
Culberson, John.................................        2006       1,000
DeLay, Tom......................................        2002       1,000
                                                        2003       1,500
                                                        2004       1,000
                                                        2005         500
                                                        2006       1,500
Gohmert, Louis..................................        2004         250
Hutchison, Kay Bailey...........................        2003         250
                                                        2004       1,000
                                                        2006       3,100
KPAC............................................        2002       1.000
Neugebauer, Randy...............................        2004         250
National Republican Congressional...............        2003         500
New Texas Fund..................................        2002         250
Sanford, Mark...................................        2004         250
Sessions, Pete..................................        2004         250
Team Texas Committee............................        2004       1,500
Wohlgemuth, Arlene..............................        2004         250
McCain, John....................................        2007       2,100
------------------------------------------------------------------------


    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    1978  Class Day Speaker, Harvard Medical School
    1979  Leon Reznick Prize for Research, Harvard Medical School
    1984-1985  Chairman, Committee on Scientific Affairs, Massachusetts 
Medical Society
    1988  NHLBI Surgery Branch Teaching Award
    1991  AHA Nation's Capital Affiliate Heartthrob Award
    1995-1996  American Heart Association Central Research Review 
Committee
    1996-1999  Who's Who in America, Who's Who in the World, Who's Who 
in Medicine and Science, Who's Who in Education
    1996-2001  Theodore and Maureen O'Driscoll Levy Professor of 
Medicine
    1996-2000  Dean's Excellence Award, UT Houston
    1996-2000  President's Citation for Outstanding Achievements in 
Clinical Service, UTHSC
    1998-2003  Advisory Board, University of Houston Health Law and 
Policy Institute
    1998  Board of Directors, Association of Professors of Cardiology
    1998  Houston Task Force on Counterterrorism
    1999  American Heart Association Operation Heartbeat Committee
    2001  Bush-Cheney Health Care Advisory Committee
    2001  Founding Director, International Center for Medical 
Technology
    2001-present  John Edward Tyson Distinguished Professor of Medicine 
CIMIT (Harvard & MIT) Research Achievement Award
    2001  Tropical Storm Allison Hero Award from Memorial Hermann 
Health Care System
    2001-2007  Board of CAPCure, The Prostate Cancer Advocacy Group 
(Now called The ``Prostate Cancer Foundation'')
    2001-2002  Mayor's Medical Advisory Committee to the Emergency 
Medical Strike Team
    2001  Co-Founder, Volcano Therapeutics, Inc.
    2002  Member, CSIS Panel on Bioterroism
    2002  U.S. Department of Health and Human Services' Best Practice 
Award for Defense of Houston
    2003  Director, Texas Training and Technology Against Trauma and 
Terrorism
    2004  General Maxwell Thurman Award, American Telemedicine 
Association
    2004  Mayor Bill White's Homeland Security Policy Group
    2004-2006  Zogby International Poll on Biotechnology
    2004-2005  Board of Directors: Lifeline Systems, Inc., and 
Spectracell, Inc; Advisory Boards: Eli Lilly, Inc., Glaxo SmithKline, 
Inc., PepsiCo, Roche Laboratories
    2005-2007  Cardiology Advisory Board, GE Healthcare
    2005  American Heart Association's Heart Ball--Medical Honoree
    2005  Delegate to The White House Conference on Aging
    2005-2007  Member, Congressman John Culberson's Science and 
Research Advisory Committee
    2005  Army Achievement Medal
    2005  Army Meritorious Service Medal
    2006  Advisory Board, RediClinics
    2006  Advisory Board, YES Preparatory School in Houston
    2006  Medical Journal Houston's Physician Spotlight
    2006  Physician Spotlight for ``O'' Magazine ``Avian Influenza'' 
(February)
    2006  Prostate Cancer Foundation's Honoree at Honor your Father 
event with the Houston Astros, Minute Maid Park, Houston (June)
    2006  Texas Medical Center's Pandemic Flu Committee
    2006  The Meritorious Achievement award presented by Iraq's Surgeon 
General and induction as honorary member of the Iraqi Military Medical 
Regiment
    2006  Joint Service Commendation medal; Iraq Campaign medal; Armed 
Forces Reserve medal with M Device.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 S. Ward Casscells.
    This 20th day of March, 2007.

    [The nomination of S. Ward Casscells, M.D., was reported to 
the Senate by Chairman Levin on March 28, 2007, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on March 29, 2007.]
                              ----------                              

    [Prepared questions submitted to William C. Ostendorff by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                                 DUTIES

    Question. Section 3213 of the National Nuclear Security 
Administration (NNSA) act states that the Principal Deputy 
Administrator shall be appointed ``from among persons who have 
extensive background in organizational management and are well 
qualified to manage the nuclear weapons, nonproliferation, and 
materials disposition programs of the administration in a manner that 
advances and protects the national security of the United States.''
    What background and experience do you possess that you believe 
qualifies you to perform these duties?
    Answer. My background and experience are well suited for the 
performance of duties as Principal Deputy Administrator. In 1975, I was 
personally selected by Admiral Rickover to serve in the nuclear power 
program and did so for over 20 years as a career submarine officer. I 
have served on six nuclear submarines, with 16 years of sea duty, with 
significant responsibilities for both the operation and maintenance of 
nuclear reactors and for the operational readiness of both strategic 
and tactical nuclear weapons. Having served as the engineer officer and 
commanding officer of nuclear attack submarines, I have years of 
experience in dealing with complex nuclear issues, a background that is 
directly relevant to the technical duties of the Principal Deputy 
Administrator.
    In the area of organizational management, I have had two 
significant leadership positions in the Navy that are relevant to the 
Principal Deputy Administrator position. First, I have served as the 
commanding officer of a nuclear attack submarine squadron with 
responsibilities for 8 nuclear attack submarines, a floating drydock, 
and a support staff encompassing over 1,200 individuals. Working with 
my staff, our job was to help the individual submarine commanding 
officers and their crews achieve success by providing tailored 
training, mentoring, and maintenance support. Second, I served as 
Director of the Division of Mathematics and Science at the United 
States Naval Academy, responsible for 5 academic departments and over 
160 faculty, over two-thirds of whom had Ph.D.s in mathematics or 
science. Both assignments required the clear articulation of policy and 
effective, routine communications on many fronts, a role I see as 
integral to the Principal Deputy Administrator position.
    Finally, for the past 3\1/2\ years, I have served as counsel for 
the House Armed Services Committee as the staff director for the 
Strategic Forces Subcommittee where I have gained a deep appreciation 
for the issues facing both the NNSA and the Department of Energy (DOE), 
as well as the role of congressional oversight.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Principal Deputy 
Administrator for Defense Programs?
    Answer. While I am confident that my experience has prepared me for 
the duties of Principal Deputy Administrator, I recognize that if 
confirmed, I will have much to learn. From day one on the job, I would 
spend a significant amount of time learning about both the organization 
and its people, at headquarters and at the site offices, in order to 
become a better leader and manager. One concrete action that I intend 
to focus on if confirmed would be to establish and sustain clear and 
unambiguous communications with a number of entities: the NNSA Federal 
workforce; the contractors who operate the production plants and the 
national security laboratories; DOE; other Federal agencies; State and 
local governments and communities, and Congress. I have spent years at 
sea ``walking around'' talking to sailors in my crew--I expect to build 
upon that practice if confirmed as Principal Deputy Administrator.
    Question. Section 3213 also states that the Principal Deputy 
Administrator ``shall perform such duties and exercise such powers as 
the administrator may prescribe, including the coordination of 
activities among the elements of the administration.''
    Assuming you are confirmed, what duties and functions do you expect 
that the Administrator of the NNSA would prescribe to you?
    Answer. If confirmed, my overarching responsibility would be to 
work with the Administrator to provide solid leadership and management 
within NNSA. As Principal Deputy, there are a number of duties that I 
anticipate the Administrator would assign to me:

        <bullet> Serving as the Chief Operating Officer of NNSA, 
        responsible for the day-to-day operations of its staff both at 
        headquarters and at the site offices, including leading the 
        Federal workforce in overseeing the administration of the 
        management and operating contracts for the nuclear weapons 
        production facilities and national security laboratories.
        <bullet> Serving as the first line manager for NNSA senior 
        managers in headquarters and the field.
        <bullet> Leading the Management Council (senior headquarters 
        and site managers) and working with the council to coordinate 
        activities between headquarters and site offices.
        <bullet> Serving as the Central Technical Authority for NNSA.
        <bullet> Serving as the senior NNSA liaison with the Defense 
        Nuclear Facilities Safety Board.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. What is your understanding of the role that you will play 
in the overall administration of the NNSA, in the event that you are 
confirmed?
    Answer. In the event that I am confirmed as Principal Deputy 
Administrator, I would expect to run the day-to-day operations of NNSA 
for the Administrator, working with the NNSA headquarters and site 
office personnel to execute NNSA's mission. I see an essential aspect 
of that role as working directly with NNSA's Deputy and Associate 
Administrators, and with the NNSA site office managers.
    Question. In your view, what are the major challenges that will 
confront the Principal Deputy Administrator?
    Answer. The first is the leadership challenge of ensuring that NNSA 
management works together as a smooth, effective team on a daily basis 
to execute NNSA's national security mission. This requires both the 
clear articulation and consistent execution of the role of Federal 
oversight at headquarters and in the field. I believe it essential for 
senior NNSA leaders to continually invigorate the highly talented 
Federal workforce with a purposeful sense of mission and esprit de 
corps.
    Second, the recurring safety and security incidents in the complex 
are of significant concern. One significant component of this problem 
is directly related to the first challenge, which is exercising the 
role of Federal oversight as intended when NNSA was created. Other 
factors have been noted in a number of both internal and external 
reviews. The protection of special nuclear material and nuclear weapons 
design information against physical and cyber security threats goes to 
the core of NNSA's mission and is an ongoing challenge.
    The third challenge is advancing the transformation of the NNSA 
nuclear weapons complex. Complex 2030, the plan to modernize the 
nuclear weapons complex infrastructure, is critical to national 
security. The process is currently underway to complete a Supplemental 
Programmatic Environmental Impact Statement (PEIS) for Complex 2030 in 
accordance with the National Environmental Policy Act (NEPA). The 
Nuclear Weapons Council also recently announced their selection of a 
design for the Reliable Replacement Warhead (RRW). RRW design 
definition and cost studies will help inform the administration and 
Congress as to how to proceed for the future in a manner consistent 
with the RRW program objectives contained in the National Defense 
Authorization Act for Fiscal Year 2006. I would expect to thoughtfully 
evaluate the results of both the Complex 2030 NEPA process and the RRW 
design definition/cost studies as NNSA moves forward with plans to 
transform the complex.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If I am confirmed, I would seek to instill a sense of 
enthusiasm and dedication to the NNSA mission as Principal Deputy 
Administrator. NNSA, both at headquarters and at the site offices, has 
a tremendously talented workforce. I see my role as working with the 
NNSA leadership team to ensure that there are clear standards and 
expectations for the Federal workforce in performing its oversight 
function and then to get out and ``look and listen'' to see how things 
are going based on both my observations and those of the Administrator.
    With respect to safety and security, I have already noted the 
importance of Federal oversight. I will also add that careful, 
objective monitoring of the performance of the management and operating 
contractors is critical to improvement in these areas. Holding 
contractors accountable for adherence to standards is integral to the 
responsibilities of the Principal Deputy Administrator. In the area of 
protecting our nuclear weapons design and other sensitive national 
security information, I would expect to carefully evaluate Federal 
staffing at the site offices to ensure they have personnel with the 
requisite technical and security backgrounds to perform effective 
oversight of security practices. I would also anticipate reviewing NNSA 
security policies to see where they may be improved.
    With respect to working with NNSA leadership on advancing complex 
transformation, if confirmed, I would work to ensure the PEIS and RRW 
evaluations were thorough and kept on schedule. I would also work to 
ensure that the processes evaluating Complex 2030 transformation 
(including the associated NEPA process) and the RRW are transparent 
(consistent with security requirements) and that the communications 
strategy is both precise and closely coordinated with the Department of 
Defense. This strategy requires ensuring that the congressional 
committees are kept informed and that NNSA is responsive to questions 
and concerns.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Principal Deputy Administrator?
    Answer. I believe that being successful as the Principal Deputy 
Administrator will require clearly communicating to the Federal 
workforce what is expected of them and ensuring that they have the 
right cadre of skills and appropriate resources to perform their 
oversight mission. I also consider as essential the building of a work 
environment where all personnel feel that they are part of a team 
performing a mission vital to national security.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I would immediately work to establish myself 
as an effective leader within NNSA. A first step here would be to meet 
with the Federal workforce, both at headquarters and in the field, to 
learn more about NNSA and how it executes its mission. Another critical 
management step is to foster clear and effective communications, both 
within NNSA headquarters and with the field offices, to establish an 
environment where all are working together as a member of an integrated 
team. Reviewing the safety and security posture and associated 
corrective actions underway is an urgent task and one that I would hope 
to have a firm grasp of within 3 months of assuming responsibilities as 
Principal Deputy Administrator.

                               PRIORITIES

    Question. If confirmed, what broad priorities would you establish 
in terms of issues that must be addressed by the Principal Deputy 
Administrator?
    Answer. If confirmed, my broad priorities would be to focus on 
ensuring that the Federal workforce is effectively performing its 
oversight mission throughout the complex. Effective oversight of the 
contractor is critical to ensuring that the complex is properly 
executing its mission, especially in key mission areas such as physical 
and cyber-security. I would anticipate reviewing how the site offices 
assess contractor performance as well as how this assessment and other 
contractor performance information is communicated to and evaluated by 
headquarters. This review also would require a careful evaluation of 
whether the resources within the Federal workforce, especially in 
technical and security areas, are adequate to perform the oversight 
mission. Along with the review of site office oversight, I would expect 
to assess how clearly headquarters communicates its expectations on 
what is expected of oversight to the site offices as well as what 
headquarters can do to better mentor and support the site offices.

                             RELATIONSHIPS

    Question. Please describe your understanding of the relationship of 
the Principal Deputy Administrator for Defense Programs with the 
following officials:
    The Secretary and Deputy Secretary of Energy.
    Answer. Under the NNSA act, the Secretary, acting through the 
Administrator, can direct the activities of NNSA. In addition, the 
Secretary sets policy for NNSA and NNSA implements it. Under the DOE 
Organization Act, the authority of the Secretary may be delegated to 
the Deputy Secretary of Energy. As Principal Deputy Administrator, I 
expect the Administrator would rely upon me to work directly with the 
Secretary and Deputy Secretary on issues in their areas of 
responsibility. Although the NNSA act establishes a clear chain of 
command between the Administrator and the Secretary (or Deputy 
Secretary), it does not limit my ability or responsibility to 
communicate, cooperate, and coordinate with the Secretary, the Deputy 
Secretary, and other senior officials in DOE.
    Question. The Administrator of the NNSA.
    Answer. The Administrator is the direct supervisor of the Principal 
Deputy. He sets priorities for the Principal Deputy and serves as the 
common superior to resolve any disputes between the Principal Deputy 
and the other Deputy Administrators. He is also responsible for 
ensuring that NNSA achieves the missions and priorities set by the 
Secretary.
    Question. Other Deputies in the NNSA.
    Answer. The other deputies are direct reports to the Principal 
Deputy who is their first line supervisor providing coordination, 
integration, and oversight of their performance.
    Question. The Assistant Secretary for Environmental Management.
    Answer. The Principal Deputy works with the Assistant Secretary for 
Environmental Management (EM) in ensuring that NNSA supports and 
facilitates the cleanup of legacy waste and contamination at NNSA 
sites. The Principal Deputy coordinates EM's work at NNSA sites with 
the Assistant Secretary for EM.
    Question. The Assistant to the Secretary of Defense for Nuclear, 
Chemical, and Biological Defense Programs.
    Answer. The Assistant to the Secretary of Defense for Nuclear, 
Chemical, and Biological Defense Programs also serves as the Executive 
Secretariat for the Nuclear Weapons Council (NWC). The NNSA 
representative to the NWC is the Administrator and, if confirmed, I 
will, along with the Deputy Administrator for Defense Programs, provide 
support to the Administrator in this critical role. The Assistant also 
chairs the subordinate committee to the NWC known as the Standing and 
Safety Committee which reviews nuclear weapons safety issues and makes 
recommendations to the NWC. The NNSA Office of Defense Programs has 
personnel who serve on the Standing and Safety Committee.
    Question. The Chairman of the NWC.
    Answer. The NWC is a joint DOD-NNSA body established to facilitate 
cooperation and coordination between the two agencies in fulfilling 
their dual responsibilities for nuclear weapons stockpile management. 
The Administrator is NNSA's representative to the NWC, which is chaired 
by the Under Secretary of Defense for Acquisition, Technology, and 
Logistics. The Principal Deputy supports the Administrator in his role 
as a member of the NWC and may act on his behalf with the Chairman of 
the NWC in the Administrator's absence. As Chief Technical Authority 
within NNSA, the Principal Deputy may interact with the NWC on 
technical issues.
    Question. The Commander of United States Strategic Command 
(STRATCOM).
    Answer. The Commander of STRATCOM is the central customer at the 
Department of Defense for the work of NNSA. Along with the three 
national security laboratory directors, he provides his judgment 
annually on the certification of the nuclear weapons stockpile along 
with the NWC to the Secretary of Defense. I expect the Administrator 
would direct me to support routine interactions with the Commander of 
STRATCOM and his staff regarding military requirements and stockpile 
size and composition.
    Question. The nuclear directorates of the Air Force and Navy.
    Answer. The Deputy Chief of Staff for Operations, Plans, and 
Requirements is the Air Force directorate with responsibility for 
policy and strategy for Air Force nuclear weapons operations and 
requirements, including arms control activities ranging from treaty 
negotiation support to implementation and compliance. The current 
incumbent is Lieutenant General Carrol Chandler. This office is the Air 
Force lead for activities to counter the proliferation of chemical, 
biological, radiological, and nuclear weapons.
    The nuclear weapons directorate of the Navy is divided into policy 
and technical organizations. The policy organization is the Strategy 
and Policy Branch within the Office of the Chief of Naval Operations. 
Rear Admiral Philip Cullom is the current incumbent. He serves as the 
principal advisor on national/naval policy matters and National 
Security Council (NSC) policy issues; and to advise and implement 
national policies with respect to nuclear weapons, strategic programs, 
and arms control initiatives. The Navy's nuclear weapon technical 
organization is Strategic Systems Programs (SSP), currently led by Rear 
Admiral Stephen Johnson. The Director of SSP is responsible for all 
research, development, production, logistics, and support of the Navy's 
Trident Missile Weapons Systems.
    I would expect to have ongoing working relationships with these 
Service offices, primarily through the NWC's Standing and Safety 
Committee.
    Question. The Associate Administrator of NNSA for Facilities and 
Operations.
    Answer. The Principal Deputy is the first line supervisor for this 
Senior Executive who is responsible for the corporate management and 
oversight of NNSA's facilities management policies and programs, 
project management systems, and office of environmental projects and 
operations. I would expect daily interaction with this Associate 
Administrator to provide oversight and to resolve any issues that may 
arise between headquarters and site managers, and to ensure the 
vitality of the industrial and laboratory infrastructure of NNSA. The 
Principal Deputy performs the annual performance appraisal of this 
Senior Executive, including the establishment of the performance plans 
and recommendations for compensation and awards.
    Question. The Associate Administrator of NNSA for Management and 
Administration.
    Answer. The Principal Deputy is the first line supervisor for this 
Senior Executive who is responsible for the overall business management 
aspects of the NNSA enterprise by providing for the financial, 
procurement and acquisition, human resources, information technology, 
and day-to-day business operations of NNSA. The information technology 
function also includes certain responsibilities for cyber-security 
practices within NNSA. I would expect daily interaction with this 
Associate Administrator to provide oversight, address concerns, and 
resolve any issues that may arise between headquarters and site 
managers. I would expect to work closely with this Associate 
Administrator on staffing of the NNSA headquarters and site offices 
with properly qualified individuals as well as management of the Future 
Leaders Program. The Principal Deputy performs the annual performance 
appraisal of this Senior Executive, including the establishment of the 
performance plans and recommendations for compensation and awards.
    Question. The DOE Director of Health, Safety, and Security.
    Answer. The Chief Health, Safety, and Security Officer advises the 
Deputy Secretary and Secretary on all matters related to health, 
safety, and security across the DOE complex. This office is responsible 
for policy development and technical assistance, safety analysis, 
corporate safety and security programs, education and training, and 
conducts independent oversight and investigations. With these broad 
responsibilities, if confirmed, I would expect to have regular contact 
with the chief of this office. For instance, this office conducts 
comprehensive assessments of the security posture, both physical and 
cyber-security, at individual NNSA sites. I would anticipate a very 
close working relationship with the chief in order to gain an external, 
professional perspective of how NNSA is doing in those areas he 
oversees and equally as important, how can NNSA improve its own 
internal practices in these vital areas.
    Question. The Under Secretary of Energy for Science and the 
Director of the Office of Science.
    Answer. I believe it is important to have a proactive working 
relationship with the Under Secretary of Energy for Science and the 
Director of the Office of Science. The DOE Office of Science is the 
single largest supporter of basic research in the physical sciences in 
the United States, and manages 10 world-class laboratories. If 
confirmed, I would expect to cooperate with the Under Secretary to 
leverage work between the science and national security laboratories on 
disciplines of common interest such as high speed computing, high 
energy physics, and materials sciences. As Principal Deputy 
Administrator and Chief Technical Authority, I expect the Administrator 
would rely upon me to work directly with the Under Secretary of Energy 
for Science on issues in his area of responsibility.
    Question. The Defense Nuclear Facilities Safety Board.
    Answer. If confirmed, I would expect that the Principal Deputy 
would be the senior liaison with the Defense Nuclear Facilities Board 
on all management issues with NNSA. The board serves a vital statutory 
oversight function for the NNSA complex, a role that I have come to 
value as a congressional staff member conducting oversight of NNSA. I 
would expect to have a very close relationship with the board and to 
foster a positive sense of cooperation between senior NNSA management 
and the board.

                         MANAGEMENT OF THE NNSA

    Question. What is the role of NNSA's Management Council and, if 
confirmed, what would be your relationship with the council?
    Answer. The NNSA Management Council provides a formal mechanism to 
help NNSA top managers deal promptly with crosscutting issues and to 
identify opportunities for synergy across NNSA. If confirmed as the 
Principal Deputy Administrator, I would be the lead official for all 
Management Council activities, and as such, would strive to ensure that 
all NNSA programs and activities are carried out in the most efficient 
and effective manner possible. In this capacity, I would keep the 
Administrator fully informed on all council activities and make sure 
that the work of the council is carried out in full consonance with his 
overall management objectives and policies.

                      WEAPONS PROGRAMS WORK FORCE

    Question. If confirmed, what specific steps would you recommend for 
the NNSA to retain critical nuclear weapons expertise, particularly 
design capabilities, in the NNSA workforce?
    Answer. If confirmed, working to retain and develop critical 
nuclear weapons expertise will be one of my highest priorities. The 
design and most other aspects of nuclear weapons require highly 
specialized skills that are not found outside the nuclear weapons 
complex but must be built on a foundation of advanced education. NNSA 
sites often invest years in additional training of employees. The 
applied use of these unique skills has proven to be the best method for 
both developing and then maintaining the skills within the workforce. 
NNSA must continue to develop its future workforce through knowledge 
transfer. The most efficient and reliable approach to achieve this 
objective is by having new hires work side-by-side with experienced 
specialists.
    With respect to design capabilities, the laboratories have had 
efforts in place for some years to develop newly hired physicists and 
specialists in related fields into designers. For a few years, the new 
hires are integrated into existing teams, staffed and led by 
experienced designers. My understanding is that this approach has been 
successfully employed to develop a new cadre of designers as evidenced 
by the successful participation of early career designers in the RRW 
designs at the laboratories.
    Question. If confirmed, what specific steps would you recommend for 
the NNSA to ensure that adequate and appropriate technical skills are 
maintained in NNSA?
    Answer. In 2006, NNSA committed to re-establishing an interagency 
effort to identify critical skills as a step towards gaining a clearer 
picture of the relative supply and demand for these highly-trained 
personnel. NNSA has reached out to other agencies and to the private 
sector for data on these critical skills. The emphasis is on 
identifying those skills that are at highest risk and which, if lost, 
would have the greatest consequences for the ability of the 
laboratories and plants to carry out their missions. If confirmed, I 
will work within NNSA to continue and expand on this work.
    Question. In your view, what are the critical skills that are 
needed in the NNSA?
    Answer. I understand from the NNSA that there is concern regarding 
the majority of the critical skills needed to support the nuclear 
weapons program. In 2004, the National Science and Technology Council 
Interagency Working Group on Critical Workforce Needs, led by the NNSA, 
collected data across the defense, homeland security, and intelligence 
communities on hundreds of critical skills and the expected difficulty 
in finding U.S. citizens with those skills over the next 5 to 10 years. 
NNSA identified almost 400 critical skills across all laboratories and 
plants. NNSA has continued to make progress in developing a methodology 
to use in identifying those skills likely to be at risk in the future 
due to shortages of appropriately educated and trained U.S. citizens.
    NNSA experts in the field expressed some degree of concern 
regarding about 80 percent of the skills identified by NNSA, and 
significant concern regarding 50 percent of the skills identified. The 
concerns arise from the anticipated retirement of critically skilled 
workers, mainly scientists and engineers, over the next few years and 
the declining number of American citizens seeking graduate degrees in 
relevant fields. Earning a Ph.D. in these fields takes 7 to 10 years, 
and laboratories and plants often invest another 2 to 3 years in on-
the-job training. These long lead times complicate the hiring of 
replacements for retiring specialists.

                        SAFEGUARDS AND SECURITY

    Question. One of the biggest initiatives of the DOE and the NNSA 
over the past several years has been to implement the various changes 
to the design basis threat (DBT) standard.
    If confirmed, what recommendations would you make to help ensure 
the NNSA meets the new DBT in a timely fashion?
    Answer. If confirmed, I will work to ensure NNSA meets its 
commitment to stay on the approved schedule for DBT compliance, stay 
focused on finding innovative security solutions, and continue to make 
progress in meeting the complex transformation goals. Meeting the new 
DBT will require proactive steps to work with the Department to 
consolidate special nuclear material in a timely and responsible 
manner, to complete construction projects on time and on budget, and to 
fully understand the impacts of any security related funding shortfalls 
at individual sites.
    Question. How should the NNSA maintain an appropriate balance 
between adding security personnel and investing in force multiplying 
technologies and infrastructure in this area?
    Answer. NNSA has maintained its security police officer staffing at 
about 2,400 persons in spite of significant increases in the DBT Policy 
in 2003, 2004, and 2005. This is due to the deployment of early warning 
and detection systems around key facilities, the use of barriers to 
delay adversaries, providing hardened structures for key materials, and 
providing its protective forces with more reliable and lethal weapons 
systems and improved training. I think the real key to achieving 
further efficiencies in the NNSA physical security mission rests in the 
ability to reduce the overly large footprint of the nuclear weapons 
complex and to make strategic investments in new facilities that are 
built with today's security requirements in mind. One of my primary 
endeavors, if confirmed for this position, will be to help lead NNSA in 
its efforts to make the Complex 2030 vision a reality.
    Question. In your opinion, what are the biggest safety and security 
threats to the facilities and materials in the nuclear weapons program?
    Answer. At this point, I think NNSA has made reasonable progress in 
developing robust physical security programs to defend against outside 
attacks. Continued investment in infrastructure security upgrades and 
complex transformation efforts will further enhance the physical 
security posture of the complex. The ``insider threat'' is one I would 
want to explore more fully. I understand that the Department will focus 
the 2008 DBT policy review on the insider threat and if confirmed, I 
will ensure NNSA is a strong contributor to this review.
    From my congressional committee oversight work, I have concluded 
that there are perhaps more ``unknown threats'' in the cyber area than 
in that of physical security. I am aware that NNSA is reviewing cyber 
security protection requirements and using a risk-based approach to 
determine what is the necessary amount of funding for cyber protection. 
If confirmed, I intend to work closely with the NNSA Chief Information 
Officer and the Department to evaluate the NNSA readiness and required 
funding to counter current and future cyber security threats.

                     STOCKPILE STEWARDSHIP PROGRAM

    Question. What is your view of the Stockpile Stewardship Program's 
progress towards its goal of being able to continuously certify the 
U.S. enduring nuclear weapons stockpile as safe, secure, and reliable, 
without the need for underground nuclear testing?
    Answer. The fact that there has not been a technical need to 
recommend a nuclear test since 1992 is a testament to the success of 
the Stockpile Stewardship Program to date. However, one cannot 
overstate the importance of ensuring that the annual process to certify 
the nuclear weapons stockpile is based on a solid scientific foundation 
involving robust peer review and uncompromising integrity. If confirmed 
as Principal Deputy Administrator, I would work hard to ensure that the 
key programs supporting the Stockpile Stewardship Program receive top-
level management attention so as to stay on cost, on schedule, and meet 
program requirements.
    Question. In your opinion, what are the greatest challenges 
confronting the Stockpile Stewardship Program?
    Answer. In my opinion, the greatest challenges confronting the 
Stockpile Stewardship Program all lead back to meeting commitments, 
both near-term and long-term. Near-term, I see that NNSA has an 
ambitious set of goals such as resuming tritium production, 
accelerating warhead dismantlements, and delivering First Production 
Units for the B61 and W76 Life Extension Programs. If confirmed, I will 
work with the Administrator to ensure resources are balanced to keep 
our commitments to the Department of Defense, Congress, and the public. 
Long-term, the NNSA has a serious challenge in keeping the right set of 
skilled workers at the laboratories, production sites, and in the 
Federal workforce. Keeping the workforce engaged and exercised will be 
essential in sustaining the U.S. nuclear deterrent without underground 
nuclear testing.
    Question. Do you fully support the goals of the Stockpile 
Stewardship Program?
    Answer. Yes, I fully support the goals of the Stockpile Stewardship 
Program, which are: 1) to sustain a safe, secure, and reliable nuclear 
weapons stockpile; 2) to maintain a fully capable, agile, responsive 
nuclear weapons complex infrastructure; and 3) to conduct research and 
development activities to ensure U.S. leadership in science and 
technology. If confirmed, I look forward to playing a key role in 
shaping the future of the Stockpile Stewardship Program.
    Question. The NNSA and the Department of Defense have recently made 
a decision to explore the feasibility of a new design for use as a RRW.
    Do you support the idea of a RRW and in your view how would such a 
program further nonproliferation goals of the United States?
    Answer. Yes, I fully support the goals of the RRW program, and 
believe it furthers nonproliferation objectives of the United States in 
a number of ways. RRW should reduce the likelihood that the U.S. would 
have to resort to nuclear testing in the future. Additionally, RRW 
could allow further significant reductions in the number of total U.S. 
nuclear warheads. A strong U.S. nuclear deterrent will also assure our 
allies that are not nuclear weapons states that the U.S. can provide 
their nuclear deterrent, obviating their need to develop and deploy 
nuclear weapons.

             NUCLEAR POSTURE REVIEW AND THE FUTURE COMPLEX

    Question. The Nuclear Posture Review (NPR), which was released in 
January 2002, contained the administration's plan to reduce the number 
of operationally deployed strategic nuclear warheads to between 1,700 
and 2,200 by 2012. These reductions were included in the Strategic 
Offensive Reductions Treaty in 2003, know as the Moscow Treaty.
    Will any nuclear warheads be dismantled as a result of the NPR and 
the Moscow Treaty?
    Answer. The Department of Defense and DOE have developed a plan 
that achieves President Bush's goal of 1,700-2,200 operationally 
deployed strategic nuclear warheads by 2012. The President's direction 
results in dramatic cuts to the stockpile that existed when he took 
office, and leads to a significant increase in total weapons available 
for dismantlement. While there are no provisions in the NPR or the 
Treaty of Moscow mandating specific dismantlement of warheads, the NNSA 
has significantly increased dismantlements.
    Question. With the large number of refurbishment and other life 
extension program activities planned over the next 6 years, including 
the possibility of a RRW, is there enough facility capacity and are 
there sufficiently qualified personnel in the NNSA workforce to also 
take on a large increase in dismantlement during the same time period?
    Answer. Last year, the NNSA provided a dismantlement plan to 
Congress that identified for dismantlement warheads that were in excess 
of stockpile requirements. Through efforts such as the Pantex 
Throughput Improvement Plan, the NNSA has significantly increased 
weapon activities using available capacity. This has ensured the 
critical enduring stockpile work for life extensions and surveillance 
can be completed while significantly accelerating dismantlements. The 
NNSA has determined that it can successfully achieve this goal. If 
confirmed, I will evaluate how well the complex achieves its 
dismantlement objectives and work to ensure the sites are properly 
resourced for this key task.
    Question. In your view, would NNSA be able to manage an accelerated 
implementation of the Moscow Treaty if directed to do so?
    Answer. The Moscow Treaty does not specifically identify a required 
dismantlement rate; it only addresses limits on the number of 
operationally deployed strategic nuclear warheads. The NNSA has already 
significantly accelerated dismantlements. However, there are 
limitations on how many operations can be done at Pantex. The current 
workload plan that factors in surveillance, life extension programs, 
dismantlements, pit packaging, and other required operations at Pantex 
maximizes available throughput during the next several decades. 
Significantly increasing the dismantlement rates at Pantex would impact 
accomplishment of the critical work that supports the safety, security, 
and reliability of the enduring stockpile. Additionally, there are 
capacity limits across the complex on shipping, storage, component 
dismantlement, and material disposition that constrain total 
dismantlement throughput. If confirmed, I would work with Defense 
Programs to optimize the workload across the nuclear weapons complex, 
to include evaluating possible further acceleration of dismantlements.
    Question. The NPR stated as one of its priority goals achievement 
of a reinvigorated infrastructure across the nuclear weapons complex.
    With competing budget priorities for the Stockpile Stewardship 
Program, such as directed stockpile work, safety and security, and 
maintenance and recapitalization, what steps would you take, if 
confirmed, to ensure the infrastructure continues to be consolidated, 
revitalized, and well-maintained?
    Answer. I support the NNSA's ``Complex 2030'' transformation goals. 
If confirmed as the Principal Deputy Administrator, I would work with 
the Administrator in optimizing the NNSA budget to achieve complex 
modernization and consolidation. If confirmed, I will demand 
accountability of NNSA personnel, both contractor and Federal, as we 
meet near-term commitments and I would work with Congress to ensure 
appropriate funding for nuclear weapons complex and stockpile 
transformation. As Counsel to the House Armed Services Committee, I am 
well aware of the limited resources available and the need to make 
tough decisions on competing priorities.
    Question. What recommendations, if any, would you make to improve 
management of the facilities in the nuclear weapons complex?
    Answer. I am aware generally of NNSA's initiatives to improve 
management of the nuclear weapons complex primarily through 
transforming the contract relationship with its management and 
operating contractors. If confirmed, and after conducting my own review 
of these initiatives, I would expect to continue efforts to include 
greater uniformity and accountability in contracts, include multi-site 
incentives in contracts that enhance total enterprise objectives, and 
provide for more effective integration across the nuclear weapons 
complex. As the complex is transformed to be smaller, more efficient, 
and more affordable, accurate, and timely communication of 
expectations, progress, and issues is essential. I see one of the key 
roles of the Principal Deputy Administrator is to ensure that the NNSA 
contracts with the sites throughout the complex are well-managed and 
professionally executed.
    Question. The Secretary of Energy Advisory Board recommended 
several options to consolidate the weapons complex of the future.
    If confirmed, would you commit to reviewing the consolidation 
options being evaluated by NNSA, to ensure that modernization of 
facilities is being complemented by consolidation of materials and 
facilities as appropriate?
    Answer. I am familiar with the nuclear weapons complex 
transformation options and material consolidation initiatives being 
considered by both the NNSA and the Department. If confirmed, I commit 
to continue to review these options as part of NNSA management; 
successful complex transformation and consolidation of both materials 
and facilities are fundamental to the success of the nuclear weapons 
program, and I would make them among my highest priorities as Principal 
Deputy Administrator.
    Question. Do you have any views on additional options that the NNSA 
could or should consider or evaluate that would ensure the most 
efficient complex of the future?
    Answer. Many decisions on complex transformation must await 
completion of the NEPA process and the formulation of detailed cost 
studies for various transformation alternatives. I understand that 
during the recently completed scoping process, NNSA received nearly 
33,000 comments on its environmental impact statement (EIS) for complex 
transformation and is considering those comments in preparing the draft 
EIS, which, when issued, will provide another opportunity for public 
review and comment. If confirmed, I would commit to conducting a 
thorough review of the EIS process and outcomes to ensure that 
decisionmaking going forward is well-informed and transparent. I would 
anticipate working closely with the NNSA staff to carefully review the 
cost studies and the underlying assumptions associated with the various 
transformation options.
    Question. There has been some criticism that the options being 
considered by the NNSA, as part of the Complex 2030 EIS, will result in 
modernization in place and no facilities consolidation.
    If confirmed, and after you have a chance to review the options in 
the EIS, if you believe that there are additional options that should 
be included in the EIS, would you inform the committee?
    Answer. Yes, if confirmed, and if I believe there are additional 
options for Complex 2030 that should be included in the NEPA process, I 
will inform the committee. My understanding is that, based on comments 
it received, NNSA is expanding the range of transformation alternatives 
it will analyze in the EIS.

                     FACILITIES AND INFRASTRUCTURE

    Question. Upon its creation, NNSA inherited an infrastructure in 
need of significant repair and modernization, particularly at the 
nuclear weapons plants. At the request of the DOE, Congress, in section 
3133 of the National Defense Authorization Act for 2002, established 
the Facilities and Infrastructure Recapitalization Program (FIRP).
    Although FIRP appears to be making good progress in revitalizing 
the nuclear weapons complex infrastructure through elimination of 
maintenance backlogs, what recommendations would you make to ensure 
that current and future maintenance activities, under the Readiness in 
the Technical Base and Facilities (RTBF) program, are in line with 
industry benchmarks when FIRP is terminated, so that no additional 
extensions of FIRP are required?
    Answer. I understand that the NNSA is committed to maintaining its 
facilities and infrastructure consistent with industry best practices. 
The RTBF program has taken some significant steps to better align 
facility operations and maintenance activities with industry practices 
in preparation for the end of the FIRP. RTBF and FIRP are working on 
enhancing the corporate facility condition performance measure to 
formalize new sustainment strategies for both categories of facilities 
which includes a national Work Breakdown Structure. One key aspect of 
efficiently allocating maintenance resources is having a clear 
understanding as to what happens to individual facilities as the 
complex is transformed--NNSA cannot afford to refurbish outdated 
buildings that may not be part of the future complex. If confirmed, I 
commit to working with the various offices within NNSA to fully 
integrate facility maintenance plans and priorities with transformation 
plans.
    Question. The DOE and the NNSA have begun to explore the 
possibility of using third party or other alternate financing options 
for construction projects.
    If confirmed, would you commit to carefully review any NNSA 
proposal to undertake construction projects with funding approaches 
that deviate from the traditional line item funding approach?
    Answer. Yes. If confirmed, I will ensure that NNSA conducts a 
rigorous, detailed, and formal review and analysis of any third-party 
or other alternative financing proposal for construction in accordance 
with the procedures established by the Deputy Secretary for such 
proposals. To be approved, these proposals must demonstrate that they 
represent a sound business decision and are in the best interest of the 
Department and the taxpayer.
    Question. In addition, would you commit to keep Congress fully 
informed of any such proposals, to fully coordinate any proposal with 
the Office of Management and Budget, and to ensure that any such 
proposals include a business case documenting that any alternative 
financing approach is in the best interest of the taxpayer?
    Answer. Yes. I will keep Congress fully informed of any such 
proposals and fully coordinate any proposals with the Office of 
Management and Budget, in accordance with the Department's policies. I 
will ensure that such proposals represent a sound business decision in 
the best interests of the NNSA and show a clear financial advantage to 
the taxpayer.
    Question. One of the goals of the effort to modernize the nuclear 
weapons complex is to reduce the number of square feet of building 
space.
    As the NNSA proceeds with construction projects in the future would 
you commit to support the goal and work to include in the total project 
cost of any new facility the disposition of any buildings or facilities 
that are being replaced?
    Answer. If confirmed, I will commit to work within NNSA to keep 
Congress fully informed of plans for Decontamination and 
Decommissioning (D&D) of old facilities being replaced by new 
facilities, or for D&D of an equivalent amount of excess space if the 
replaced facilities can be refurbished in a cost effective manner. 
Reducing the footprint of the NNSA nuclear weapons complex is an 
important component of the Department's preferred approach to complex 
transformation known as Complex 2030. I understand that current NNSA 
practices do not include disposition costs for old buildings in the 
total project costs for new replacement facilities. If confirmed, I 
commit to reviewing NNSA practices in this area.

             ENVIRONMENTAL RESTORATION AND WASTE MANAGEMENT

    Question. What responsibility do you believe the NNSA should have 
for funding, managing, and disposing of its current and future 
hazardous waste streams and environmental restoration?
    Answer. Environmental restoration at the NNSA sites addresses 
cleanup of legacy contamination and waste. This work is funded and 
overseen by the Office of EM, and performed by NNSA contractors. It is 
NNSA's responsibility to assure that this work is performed in a safe, 
cost effective manner that meets regulatory requirements, and to ensure 
that such activities are appropriately integrated with other ongoing 
site mission activities.
    As to future waste streams, these are the responsibility of NNSA. 
NNSA is also responsible for ensuring that current operations comply 
with all environmental requirements.
    Question. What specific steps do you believe the NNSA should take 
to negotiate programmatic responsibilities for environmental activities 
between the NNSA and the Office of the Assistant Secretary for EM?
    Answer. Presently, DOE's Office of EM provides funding to NNSA 
sites for the EM work scope. This work includes legacy cleanup 
activities and the disposition of legacy waste. EM defines the scope of 
work and budget for projects at NNSA sites based on input and 
recommendations from NNSA. However, NNSA maintains authority, 
direction, and control as the landlord and contracting authority for EM 
work conducted at NNSA sites. NNSA directs and executes the program 
through its management structure and management and operating 
contractors. NNSA then reports to EM on project performance against the 
baseline and milestone schedules. This approach is consistent with the 
NNSA act and budget direction from Congress.
    I remain committed to successful execution of the EM-funded 
activities at the NNSA sites and effective integration of this work 
scope with our ongoing mission.
    Question. If confirmed, what role do you anticipate you will play 
in this process?
    Answer. If I am confirmed, my role would be to ensure that NNSA and 
its contractors perform EM work at our sites in an effective and 
expeditious manner. It is my expectation that both my NNSA staff at 
Headquarters and at the NNSA sites will be able to work within the 
existing agreements and protocols to effectively execute the work. 
However, in those instances where there are issues that cannot be 
easily resolved, I expect to be fully engaged in resolution. To that 
end, I will work both with NNSA, DOE, and State and Federal regulators 
to develop appropriate solutions.

               DEFENSE NUCLEAR NONPROLIFERATION PROGRAMS

    Question. In your view, are any policy or management improvements 
needed in the Defense Nuclear Nonproliferation Programs? If so, what 
improvements would you recommend?
    Answer. In the policy area, I fully support NNSA's expansion of 
nuclear nonproliferation program activities outside the former Soviet 
Union and if confirmed, would work with the Deputy Administrator for 
Defense Nuclear Nonproliferation to advance these efforts. In the area 
of program management, I am aware of concerns from NNSA related to the 
challenges that arise from having to deal with two separate funding 
mechanisms--one for program activity and the other for program 
direction. I understand that NNSA believes the current funding 
arrangement creates an impediment in terms of personnel management, 
training, travel, and information technology support. If confirmed, I 
would work with the Deputy Administrator for Defense Nuclear 
Nonproliferation to gain a better understanding of this management 
concern and develop proposed corrective action.
    Question. NNSA has significantly expanded its work in the Megaports 
program in cooperation with the Department of Homeland Security (DHS).
    If confirmed, would you commit to keeping Congress fully informed 
as to the success of, as well as any problems with, this cooperative 
relationship?
    Answer. During my time working for Congress, I have received 
briefings on the Megaports program. As for the Megaports program's 
cooperation with the DHS, I understand that NNSA has developed a close 
working relationship with DHS and its various components, including 
Customs and Border Protection (CBP) and the Domestic Nuclear Detection 
Office (DNDO). NNSA has worked closely with CBP in coordinating the 
implementation of the Megaports Initiative with their Container 
Security Initiative. With DNDO, NNSA is working closely in the 
development of the global nuclear detection architecture and in their 
evaluation and procurement of next generation radiation detection 
technologies. NNSA's success is clearly linked to that of DHS in these 
important areas. If confirmed as Principal Deputy Administrator, I 
would work with NNSA and DHS leadership to foster a close cooperative 
relationship.
    If confirmed, I would commit to keeping Congress informed about the 
status and health of NNSA's relationship with DHS.
    Question. The NNSA has responsibility for the bulk of the Federal 
Government's basic research on radiation detection technologies as well 
as other nuclear technologies, such as those used in nuclear forensics.
    If confirmed, would you commit to undertake a review of the 
nonproliferation research and development program to ensure that it is 
adequately funded and fully coordinated with the activities of other 
Federal agencies?
    Answer. I understand that NNSA's nonproliferation research and 
development work has potential applicability to a number of Federal 
agencies. Should I be confirmed as Principal Deputy Administrator, I 
commit to reviewing the NNSA funding as well as coordination with other 
Federal agencies in the area of nonproliferation research and 
development.

                     MATERIALS DISPOSITION PROGRAM

    Question. The NNSA is responsible for implementing the United 
States commitment to the Russian government to dispose of 34 metric 
tons of weapons grade plutonium. There are many issues and challenges 
facing the program including the fact that it is substantially over 
budget. In the National Defense Authorization Act for Fiscal Year 2007, 
Congress directed DOE and NNSA to undertake an independent cost 
estimate for the plutonium disposition program and facilities.
    If confirmed, would you ensure that the congressional direction is 
followed?
    Answer. Yes. It is my understanding that DOE will submit its 
response to this requirement in the near-term. If confirmed, I will do 
my best to ensure that the NNSA complies with the congressional 
direction on the plutonium disposition program in a timely fashion.

                       NATIONAL IGNITION FACILITY

    Question. The National Ignition Facility (NIF) is scheduled to 
achieve ignition by 2010. In order to accomplish this goal under 
current funding, much of the experimental work has had to be postponed.
    If confirmed, would you commit to examining any opportunities that 
may exist to restore experimental work at the NIF in advance of 
ignition?
    Answer. Yes, I support the goal of ignition at the NIF and 
appreciate the value of NIF pre-ignition experimental work to the 
Stockpile Stewardship Campaign. I understand that the NNSA is working 
to increase opportunities for experimental work at NIF prior to 
ignition consistent with completion of NIF on its current baseline, the 
ignition 2010 experimental campaign, and available budget. If 
confirmed, I will examine opportunities to restore experimental work in 
advance of NIF ignition.

                        NUCLEAR WEAPONS TESTING

    Question. Do you support the current moratorium on testing?
    Answer. Yes, I support the current moratorium on nuclear testing. 
Supporting a vigorous Stockpile Stewardship Program and the RRW program 
should reduce the likelihood in the long-term that the U.S. would have 
to resort to nuclear testing in the future.
    Question. Do you believe that there is a need at the present time 
to resume underground nuclear weapons testing to support the current 
stockpile or to support new or modified nuclear weapons?
    Answer. No. I understand from the NNSA and the Department of 
Defense that there are no foreseeable requirements that would lead to a 
recommendation for a nuclear test for technical issues, either to 
support the enduring stockpile or to support the RRW program.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Principal Deputy 
Administrator?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees in a timely manner?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Question for the record with answer supplied follows:]

                Question Submitted by Senator Mark Pryor

                         NUCLEAR PROLIFERATION

    1. Senator Pryor. The National Nuclear Security Administration 
(NNSA) has said that the acquisition of nuclear weapons, weapons of 
mass destruction capabilities, technologies, and expertise by rogue 
states or terrorists stands as one of the most potent threats to the 
United States and international security. What is your plan to address 
these threats?
    Mr. Ostendorff. The mission of NNSA's Office of Defense Nuclear 
Nonproliferation (DNN) is to detect, prevent, and reverse the 
proliferation of nuclear materials, technology, and expertise. DNN's 
programs are structured in support of multiple layers of defense 
against nuclear proliferation and terrorism. NNSA's first line of 
defense is to secure nuclear materials in place at vulnerable 
materials, facilities, and sites worldwide. In this area, NNSA is 
working to complete site security upgrades at Russian sites by the end 
of 2008 as agreed to by the U.S. and Russia under the Bratislava 
Initiative. NNSA's second line of defense is the deployment of 
radiation detection monitors at border crossings and major seaports. In 
this area, NNSA has equipped 88 land border crossings and 8 major 
seaports with radiation detection equipment. This layered defense 
strategy is bolstered by NNSA's efforts to reduce quantities of nuclear 
materials, to develop cutting-edge proliferation detection 
technologies, and to strengthen the nonproliferation regime.
    If confirmed, I will continue and, where possible, accelerate work 
in all of these areas to ensure that NNSA is doing all that it can to 
prevent the acquisition of nuclear weapons, weapons of mass destruction 
capabilities, technologies, and expertise by rogue states or 
terrorists. In addition to the work NNSA does, I plan to work closely 
with other agencies of the U.S. Government as well as with 
international partners through the Global Initiative to Combat Nuclear 
Terrorism to coordinate national and international efforts to meet the 
serious threat posed by nuclear proliferation and terrorism.
                                 ______
                                 
    [The nomination reference of William C. Ostendorff 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 February 26, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    William Charles Ostendorff, of Virginia, to be Principal Deputy 
Administrator, National Nuclear Security Administration, vice Jerald S. 
Paul, resigned.
                                 ______
                                 
    [The biographical sketch of William C. Ostendorff, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]

                 Biographical Sketch of Bill Ostendorff

    A native of Shreveport, LA, Bill Ostendorff graduated from the 
United States Naval Academy with merit in 1976 with a B.S. in Systems 
Engineering. Following initial nuclear power and submarine training, he 
served on six submarines, including command of U.S.S. Norfolk (SSN 714) 
from 1992-1995. During this tour he conducted highly successful 
classified overseas deployments to the Mediterranean and the North 
Atlantic. U.S.S. Norfolk was recognized by Commander Submarine Force 
Atlantic as having achieved the greatest improvement in combat 
readiness among the 53 attack submarines in the Atlantic Fleet in 1993 
and was awarded the Meritorious Unit Commendation by the Secretary of 
the Navy. In 1995, he was recognized by Commander, U.S. Atlantic Fleet, 
as a finalist for the Vice Admiral James Stockdale award for 
inspirational leadership in command.
    From 1996-1998, Bill was Director of the Submarine Force Atlantic 
Prospective Commanding Officer School. From 1998-1999, he commanded the 
1,200 men and women of Submarine Squadron Six in Norfolk, responsible 
for the operations, maintenance, and training of 8 attack submarines 
and a floating drydock. From 1999-2002, he served as Director of the 
Division of Mathematics and Science at the United States Naval Academy.
    Bill's awards include four awards of the Legion of Merit and 
numerous campaign and unit awards. His education includes a JD from the 
University of Texas (Order of the Coif), an LLM in International and 
Comparative Law from Georgetown University Law Center (with 
distinction), and graduate work in policy studies at the University of 
Maryland. He is a member of the State Bar of Texas.
    Upon retiring from the Navy in 2002 in the grade of Captain, Bill 
joined the Institute for Defense Analyses in Alexandria, VA. In 2003, 
he joined the staff of the House Armed Services Committee where he 
assumed duties as staff director for the Strategic Forces Subcommittee 
which has oversight responsibilities for the Department of Energy's 
Atomic Energy Defense Activities as well as the Department of Defense's 
space, missile defense, and intelligence programs. Bill and his wife 
Chris, reside in Oakton, VA, and have three children--Becky, a third 
year law student at the University of Virginia; Chuck, an Army Second 
Lieutenant stationed with the 2nd Calvary Regiment in Germany; and 
Jeff, a second year student at the College of William and Mary.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by William C. 
Ostendorff in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    William C. Ostendorff, Nickname: Bill.

    2. Position to which nominated:
    Principal Deputy Administrator, National Nuclear Security 
Administration.

    3. Date of nomination:
    February 26, 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    October 22, 1954; Shreveport, LA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Christina Lee Miller Ostendorff.

    7. Names and ages of children:
    Rebecca Lee Ostendorff, 26; Second Lieutenant William Charles 
Ostendorff, Jr., USA, 22; Jeffrey Thomas Ostendorff, 19.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Jesuit High School, Shreveport, LA, 1972.
    United States Naval Academy, B.S. Systems Engineering, 1976.
    University of Texas School of Law, J.D., 1984.
    Georgetown University Law Center, LLM International Law, 1992.
    University of Maryland School of Public Policy, Graduate 
Certificate In Policy Analysis, 2005.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    August 2003-Present, Counsel, House Armed Services Committee.
    August 2002-August 2003, Research Staff Member, Institute for 
Defense Analyses, Alexandria, VA.
    August 1999-July 2002, Director of Division of Mathematics and 
Science, United States Naval Academy, Annapolis, MD.
    April 1998-August 1999, Commander Submarine Squadron Six, Norfolk, 
VA.
    December 1995-March 1998, Director, Submarine Prospective 
Commanding Officer School, Submarine Force Atlantic, Norfolk, VA.
    November 1992-November 1995, Commanding Officer, U.S.S. Norfolk, 
(SSN 714) Norfolk, VA.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member State Bar of Texas (admitted 1984).
    Life Member, United States Naval Academy Alumni Association.
    Church of the Holy Comforter, Vienna, VA.
    Grachur Club--a family summer retreat with a religious heritage on 
Magothy River south of Baltimore, MD--President (started 2-year term 
October 2005).

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Republican National Committee member.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Republican National Committee contributions:
      January 2007 - $30
      October 2006 - $40
      August 2006 - $30
      January 2006 - $30
      September 2005 - $25

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Military:
      Legion of Merit (four awards)
      Defense Meritorious Service Medal
      Meritorious Service Medal
      Navy Commendation Medal (four awards)
      Other Navy unit awards
      Finalist 1995 Vice Admiral Stockdale Award for Inspirational 
Leadership in Command

    Law school:
      Order of the Coif
      Gene Woodfin Prize for Leadership
      National Patent Moot Court Finalist

    College:
      Listed in Who's Who Among American College Students 1976.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                             William C. Ostendorff.
    This 7th day of March, 2007.

    [The nomination of William C. Ostendorff was reported to 
the Senate by Chairman Levin on March 28, 2007, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on March 29, 2007.]


    NOMINATION OF LTG DOUGLAS E. LUTE, USA, TO BE ASSISTANT TO THE 
PRESIDENT AND DEPUTY NATIONAL SECURITY ADVISOR FOR IRAQ AND AFGHANISTAN

                              ----------                              


                         THURSDAY, JUNE 7, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
E. Benjamin Nelson, Bayh, Clinton, Pryor, Webb, Warner, Inhofe, 
Sessions, Dole, and Thune.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; Evelyn N. Farkas, professional staff 
member; William G.P. Monahan, counsel; Michael J. Noblet, 
research assistant; and William K. Sutey, professional staff 
member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; David M. Morriss, minority counsel; and Richard 
F. Walsh, minority counsel.
    Staff assistants present: David G. Collins and Kevin A. 
Cronin.
    Committee members' assistants present: Jay Maroney, 
assistant to Senator Kennedy; David E. Bonine and James Tuite, 
assistants to Senator Byrd; Frederick M. Downey, assistant to 
Senator Lieberman; Elizabeth King, assistant to Senator Reed; 
Christopher Caple, assistant to Senator Bill Nelson; Andrew R. 
Vanlandingham, assistant to Senator Ben Nelson; Jon Davey, 
assistant to Senator Bayh; M. Bradford Foley and Terri Glaze, 
assistants to Senator Pryor; Gordon I. Peterson, assistant to 
Senator Webb; Sandra Luff, assistant to Senator Warner; Anthony 
J. Lazarski, assistant to Senator Inhofe; Lenwood Landrum, 
assistant to Senator Sessions; Mark Winter, assistant to 
Senator Collins; Clyde A. Taylor IV, assistant to Senator 
Chambliss; Lindsey Neas, assistant to Senator Dole; and Stuart 
C. Mallory and Jason Van Beeks, assistants to Senator Thune.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. We welcome this 
morning Lieutenant General Douglas Lute, whom President Bush 
has named as his choice for what the President called the 
``full-time manager'' for the conflicts in Iraq and 
Afghanistan. Lieutenant General Lute has been serving as the 
Director of Operations on the Joint Staff since September 2006. 
Immediately prior to this assignment, he served for more than 2 
years as the Director of Operations at the U.S. Central Command 
(CENTCOM), overseeing combat operations in Iraq and Afghanistan 
and other operations in the CENTCOM area of responsibility 
(AOR).
    General Lute is accompanied by his wife, Jane Holl Lute, 
herself a retired Army officer, who is currently Assistant 
Secretary General for Peacekeeping Operations at the United 
Nations; and we welcome you, Mrs. Lute.
    General Lute is an accomplished senior officer with a 
distinguished record and great experience in both military 
tactics and national security strategy and policy. He's been 
nominated for an unenviable position. He'll be responsible for 
bringing coherence to an incoherent policy, a policy that is 
still floundering after more than 4 years of war in Iraq.
    We asked General Lute several advance policy questions 
prior to the hearing, one of which was what authority he will 
have to fulfill the responsibilities of the position to which 
he is nominated. In his written reply he said that: ``The 
position is an advisor and coordinator, without directive 
authority beyond a small staff.'' He further said that the 
ability to move policy forward had to do with such factors as 
``presidential direction and support, acceptance by other 
policy principals, broad commitment to a common cause, 
cultivated interpersonal relationships, personal integrity, and 
meaningful results.''
    Secretary of State Condoleezza Rice, described as a close 
personal friend of the President, almost a family member, was 
either not able to get that presidential direction and support 
or not able to employ it to bring coherence to the President's 
policy, and one has to wonder, how does one expect that General 
Lute can be more successful.
    It is no secret that several retired four-star general 
officers were offered the position and turned it down. 
According to media reports, one reason given by one of the 
generals was that the administration remains fundamentally 
divided on how to carry out the conflicts in Iraq and 
Afghanistan. Retired Marine General Jack Sheehan, who declined 
to be considered for the position, was quoted as saying, ``The 
very fundamental issue is the administration doesn't know what 
the hell or where the hell they're going.'' General Sheehan 
reportedly expressed concern that the hawks within the 
administration, including Vice President Dick Cheney, remain 
more powerful than the pragmatists looking for an exit in Iraq. 
That does not bode well for General Lute.
    It is no secret that General Lute himself questioned the 
so-called ``surge'' strategy for Iraq before its announcement 
by the President last January. The results of the surge are not 
very promising. Nearly 5 months after it began, the surge is 
nearly complete, with the last U.S. combat brigade now being 
deployed in Iraq. However, American casualties are at some of 
the highest levels of the war, sectarian violence is rising 
again after a short reduction, and the insurgency is as active 
as ever, especially in the use of mass casualty-producing car 
bombs against Iraqi civilians and the improvised explosive 
devices (IEDs) against U.S. and Iraqi forces.
    Iraqi units are reporting to Baghdad with an average of 
only 70 percent strength and, while American soldiers have been 
extended or deployed on 15-month tours with 12 or fewer months 
between rotations, Iraqi soldiers are on 3-month tours to 
Baghdad with no plan that we are aware of to return Iraqi units 
back for another rotation once they depart. Those are the words 
of Major General William Caldwell, the Multi-National Force-
Iraq spokesman, as quoted in the Washington Post.
    Apparently the first Iraqi troop rotation was completed in 
March, the second will be completed this month, and the third 
is in preparation. Sooner or later, the Iraqis will run out of 
troops for these rotations.
    Just as troubling, with little continuity in Iraqi troop 
presence, it'll be the Americans who will have to continue to 
lead the constantly changing Iraqi forces in the Baghdad 
neighborhoods. With no stable Iraqi troop presence in those 
neighborhoods, there'll be little intelligence gleaned from the 
Iraqi people and it will be the Americans who will be forced to 
continue to take the lead in holding those neighborhoods.
    In fact, media coverage of the weekly reports by American 
brigade commanders indicates that only 128 of 457 neighborhoods 
are under control and that insurgents have been cleared out in 
those 128 and the population can be protected.
    Now, Prime Minister Nouri al-Maliki promised that there 
would be no political interference with the operation, but 
there have been recent disturbing press reports of a department 
of the prime minister's office, the office of commander in 
chief, ``playing a major role in the arrest and removal of 
senior Iraqi army and national police officers, some of whom 
had apparently worked too aggressively to combat violent Shiite 
militias.''
    That report in the Washington Post quoted Brigadier General 
Dana Petard, Commanding General of the Iraq Assistance Group, 
which provides the military transition teams advising Iraqi 
units, as saying: ``Their only crimes or offenses were that 
they were successful,'' meaning successful against the Mahdi 
Army. Then he goes on to say--and this is our general--``I'm 
tired of seeing good Iraqi officers having to look over their 
shoulders when they're trying to do the right thing.''
    The surge is now nearly complete. The stated principal 
purpose of the surge was to give space and time for the Iraqi 
politicians to make progress on important political 
reconciliation benchmarks, such as implementing legislation for 
the equitable distribution of revenues from oil sales, de-
Baathification, and constitutional amendments that would lead 
to reconciliation among the three main Iraqi groups. Progress 
is not apparent in that all-important area of political 
reconciliation.
    I was dismayed to see a report in yesterday's Los Angeles 
Times that Prime Minister Maliki's top political advisor, Sadiq 
al-Rikabi, said that he doubts the prime minister will be able 
to win passage of key legislation so ardently sought by U.S. 
officials and quoted him as saying ``We hope to achieve some of 
them, but solving the Iraqi problems and resolving the 
different challenges in the next 3 months would need a 
miracle.'' Those are his words.
    How much more time should we give after 4 years in Iraq? 
Baghdad is burning while the Iraqi politicians avoid accepting 
responsibility for their country's future. I believe the only 
chance to get Iraqi politicians to stand up is when they know 
we are going to begin to stand down. Our soldiers risk their 
lives while Iraqi politicians refuse to take the political 
risks and make the necessary compromises to promote 
reconciliation. We cannot continue to have the lives of 
American servicemembers held hostage to Iraq political intrigue 
and intransigence.
    Now, I'm going to put the balance of my statement in the 
record--it relates to Afghanistan--because Senator Inhofe needs 
to leave immediately for another important assignment. So, with 
Senator Warner's concurrence, I'm now going to call upon 
Senator Inhofe for his opening remarks.
    [The information referred to follows:]

            The Balance of Senator Levin's Opening Statement

    Another challenge of the new position for which General Lute has 
been nominated will be to ensure that even as we're focused on Iraq 
that we don't neglect the mission of bringing security and stability to 
Afghanistan. This is a pivotal time for our efforts there. In 2006, the 
security trends were in the wrong direction--attacks on coalition 
forces, roadside bombs and suicide bombers were all up compared to the 
year before. In response, the NATO-led International Security 
Assistance Force (ISAF) launched military operations to counter an 
anticipated Taliban spring offensive. Last week, Secretary Gates during 
his visit to Kabul was guardedly optimistic that coalition forces are 
making progress against a Taliban resurgence. As British General David 
Richards, former ISAF Commander, recently wrote, there may be a 
``window of opportunity,'' thanks to ISAF and the Afghanistan security 
forces, for the Afghan government and the international community to 
promote governance and development for the Afghan people.
    One of the main tasks of the position for which General Lute has 
been nominated will be to ensure that the entire Government, both the 
military and civilian components, are providing the necessary resources 
to succeed in Afghanistan. Militarily, it is essential that our troop 
levels, and those of our NATO allies and the Afghan security forces, 
are sufficient to both clear areas of Taliban influence and then hold 
those areas.
    But, as General Lute states in his answers to pre-hearing advance 
policy questions, ``the solution in Afghanistan will be political, not 
military.'' To succeed, we, along with the international community, 
must also commit the financial resources and civilian expertise to the 
other components of the Afghanistan mission--improving governance and 
bringing economic development through the joint military-civilian 
Provincial Reconstruction Teams; fighting corruption; and countering 
the scourge of the illegal drug trade. With more than 60 countries on 
the ground in Afghanistan, as well as the United Nations, the European 
Union and NATO, and the Afghan Government, the person coordinating this 
effort will have his work cut out for him.

    Senator Warner. I concur.
    Senator Inhofe. Thank you, Mr. Chairman. I do appreciate 
your accommodating this. We have an Environment and Public 
Works Committee hearing that is very significant, as Senator 
Warner knows, and I must be there.
    Let me quickly say, General Lute, as we've discussed in my 
office, I was one of those who didn't think this position was 
necessary. However, I would say this, that if the position is 
necessary and we're going to do it, you're the ideal person for 
the job.
    Let me just give you a different perspective from our 
chairman, because I don't agree with his statement. After 
having returned from my 14th trip in the AOR, not always in 
Iraq but in the surrounding area, this is the first time that I 
saw some results. This was just 2 weeks ago and I am really 
excited about it. I think it's a combination of three things, 
and what I'll ask you to do is respond to this in the record, 
to find out what your feelings are about them.
    One is, it appeared to me you had coinciding at the same 
time the surge, the appearance of General David Petraeus, and 
the concern of the Iraqis, primarily the clerics, over this 
idea that we had all these cut-and-run resolutions here and 
that all of a sudden they realized maybe they're going to have 
to do this on their own, I think that actually provided 
something very positive.
    My experience there was mostly in the Anbar Province, I 
remember, it was only a year ago that al Qaeda made the 
announcement, this is going to be the capital of terrorism, if 
you would, in Ramadi. Ramadi is now under control and the whole 
Anbar Province does look very good.
    In Fallujah, I've been there many times and I've watched 
the progress--that's a place that we all have these visions of 
this World War II type of door-to-door marine activity. It is 
now virtually under the control of the Iraqi security forces, 
something we did not expect could happen this soon.
    I want to ask you to study this a little bit and tell me if 
I'm wrong on this. We've heard a lot about Prime Minister 
Maliki, Defense Minister Jassim, Dr. Rubaie, and all these 
people we've met. But these are the political leaders. It 
appeared to me that the progress being made is really being 
made through the mosques. It's my understanding--and correct me 
if I'm wrong in the record--that we've been monitoring the 
messages that come from the mosques on a weekly basis. Up until 
February, about 80 percent of these were anti-American 
messages. They started dwindling down so that in the month of 
April there was not one anti-American message coming out of the 
mosques.
    I've come to the conclusion the clerics, the imams, are 
really the leaders and the reasons for the real progress I have 
seen.
    [The information referred to follows:]

    It is true that there has been an overall decline in anti-American 
rhetoric coming out of the mosques; despite this decline, however, the 
coalition remains the overall primary target of insurgent and militia 
attacks. Specifically in al Anbar, the dramatic decrease in violence 
comes mainly from the actions of Sunni tribal leaders.

    The second thing I'm going to ask you to respond to is on 
two programs. One is what we in this country would call the 
neighborhood watch program. Where somehow--and I assume it's 
coming from the clerics--we're getting individuals, unarmed, 
who are volunteering to go out with spray cans and spray paint 
around the undetonated IEDs--cooperating just as we would in 
this country on some of our anti-crime efforts.
    [The information referred to follows:]

    There are 9 District Councils and 88 Neighborhood Councils that 
represent over 5 million citizens of Baghdad. Members of these councils 
are selected from their peers, represent local citizen interests, and 
provide interface with coalition forces and Iraqi security forces 
(ISF). Because reconstruction and community governance are such a key 
component of the Baghdad security plan, ISF, and Multi-National 
Division-Baghdad are working very closely with these councils to 
address neighborhood security concerns, restore essential services, and 
facilitate civil-military projects designed to improve the quality of 
life in each neighborhood.

    The third thing I noticed, it was actually in Baghdad, was 
called joint security stations, where our guys go out and 
instead of coming back to the Green Zone after their missions, 
they actually stay out in the neighborhoods with the Iraqi 
security forces, developing very intimate relationships. To me, 
this is the reason for that success and I see these successes 
there.
    The last thing I would ask you to talk about for the record 
is, I've heard from people a lot of them don't even want this 
to succeed over there--that the same model and the activity you 
have in the Anbar Province is not something that would work in 
the rest of Iraq. I'd like to know your feeling about that and 
why these programs that I see as greatly successful would not 
work in other parts of Iraq. That would be for the record, and 
thank you very much, Mr. Chairman and Senator Warner, for 
allowing me to get my words in.
    [The information referred to follows:]

    The political progress in the past several months in al Anbar 
province has dramatically improved the security situation there. 
Essentially the Sunni tribes are standing up together to oppose al 
Qaeda. We are beginning to see signs of similar Sunni tribal opposition 
to al Qaeda in Diyala and Saladin provinces, and in some areas of 
Baghdad. Some experts suggest that al Anbar is a special case because 
it is so predominately Sunni and that similar tribal-based progress is 
not likely in other areas that are mixed Sunni-Shia. My assessment is 
that it is too early to tell whether this pattern will play out beyond 
al Anbar, but it represents a potential for improving security that we 
should support based on assessments of our leaders on the ground.

    General Lute. Thank you, Senator.
    Chairman Levin. Senator Warner, we've changed the procedure 
a little bit here to accommodate Senator Inhofe, but we don't 
want to shortchange you on your opening statement, so let me 
call on you.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. First, I extend a very warm welcome to you, 
General and Mrs. Lute, and thank you and your family for many 
years of loyal and dedicated service in the United States Army, 
and most importantly to our Nation.
    You are taking this position at the request of the 
President of the United States. It's not one that you sought. 
You are very, I think, happily and exceptionally good at 
delivering the responsibility as Chief of the Staff of the 
Joint Staff. As you well know, I've had the occasion on a 
regular basis to come over and visit with you and other members 
of the Joint Staff and observe you and the manner in which you, 
with extraordinary professional capability, manage those 
responsibilities on behalf of the Chairman of the Joint Chiefs 
and the Secretary of Defense.
    I commend you for all your posts, and I further reflect on 
a trip that we took, again this time at the request of the 
President on my behalf. The North Atlantic Treaty Organization 
(NATO) commander at that time, General James Jones, asked you 
to accompany me, and we went into Africa to examine some of the 
areas that were experiencing civil strife and a turnover in 
government. I saw firsthand how you handled yourself, both as a 
soldier in a situation that was not entirely secure by any 
measure and also with the heavy influx of diplomacy. So I have 
the highest professional regard for you as a person and you 
have my full support in this position.
    Now, it seems to me, Mr. Chairman--and you and I have been 
on this committee together many years, 29 to be exact--there 
are strong divisions within the committee regarding policies as 
it relates to Iraq and to a lesser extent to Afghanistan. The 
chairman has expressed his. I most recently, together with a 
number of other Senators, 52 to be exact, put a measure through 
the Senate, which measure was eventually taken almost verbatim 
and incorporated in the most recent appropriations bill, in 
which in a bipartisan way we discussed the need for benchmarks, 
an independent examination to be performed by a private sector 
entity and a retired group of military officers as to the 
professional capabilities today and projecting into the future 
of the Iraqi security forces.
    Of course everyone is free to discuss policy, but in my 
judgment this hearing is about General Lute, his background, 
his experience, his ability to fulfill this position. Now, this 
position has been the subject of some characterizations by 
certain retired officers who allegedly were invited to consider 
it. I was somewhat struck--I have known several of those 
officers very well--about their condemnation of it.
    But that's not General Lute's problem. He didn't 
participate in that, and I just don't think that those comments 
by those officers are germane to this hearing. This hearing is 
on whether or not this officer has the professional credentials 
to fulfill this assignment requested by the President of the 
United States, a nomination submitted to the Senate for 
confirmation. I, for one, feel ever so strongly, based on 
personal work with him over a period of several years, on his 
extensive biographical material, this officer is more than 
qualified to handle those positions.
    I think one of the most important aspects of this 
assignment, if not the most important in my judgment, in 
addition to your credentials, is will you provide the President 
your own impartial, straightforward personal advice on a range 
of issues relating to these two AORs? That's it. I've come to 
know you. In my dealings with you, you have always said to me, 
even though perhaps knowing I didn't fully share those views, 
these were your professional views, these were your 
assessments.
    There's been throughout the history of our country a number 
of military officers who've stepped up to take on these 
positions with our Presidents, remaining on active duty, but 
assigned to the president. As this description of your job lays 
out very clearly, you're reporting to him and reporting to him 
only. For military career purposes, you do have your normal 
chain of command, but that in no way is going to obstruct or 
impede your ability to give the President your impartial 
assessment of situations. Many of these situations we cannot 
foresee on this date at this time, because this is an ever-
changing scenario, particularly in Iraq, politically, 
economically, and militarily.
    I was impressed. I've gone through very carefully the 
responses that you've given to the questions propounded by the 
committee, which we do as a matter of routine here for officers 
coming forward for this type of position. But the question is 
very interesting: ``What role, if any, did you play in the 
development of the new Iraq strategy announced by the President 
earlier this year, January 10? Press reports indicate that you 
opposed the surge strategy during policy deliberations prior to 
the President's decision. Is that true? If so, why? Have events 
to date validated or invalidated your concerns?''
    This is your reply, very straightforward I find: ``I 
participated in the policy review prior to the President's 
decision to adjust course in January 2007. During the review I 
registered concerns''--your personal, professional concerns--
``that a military surge would likely have only temporary and 
localized effects unless it were accompanied by counterpart 
surges by the Iraqi Government and the other non-military 
agencies of the U.S. Government. I also noted our enemies in 
Iraq have in effect a vote and should be expected to take 
specific steps to counter our efforts. The new policy took such 
concerns into account. It's too soon to tell the outcome.''
    I think that's a very straightforward answer, and that's 
what I say is clear evidence of how you're going to handle this 
important assignment with the President.
    So I congratulate you and I think the President has chosen 
well, and I'm happy to participate in this hearing this 
morning.
    I thank the chairman.
    Chairman Levin. Thank you very much, Senator Warner.
    Now, before we call upon you, General, pursuant to the 
longstanding tradition of this committee, we ask all of our 
nominees, military and civilian, to answer a series of advance 
policy questions, which Senator Warner has referred to. These 
questions and the nominee's responses will be made part of the 
record.
    There are also certain standard questions that we ask of 
every nominee who appears before the committee. These are the 
questions and we would appreciate your answers:
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    General Lute. Yes, sir.
    Chairman Levin. Thank you.
    Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation 
process?
    General Lute. No, sir.
    Chairman Levin. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record in hearings?
    General Lute. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to Congressional requests?
    General Lute. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    General Lute. Absolutely.
    Chairman Levin. Now, the next question is one which you 
have answered for the record in a way which is more 
complicated. I want to alert you to that and make sure we're on 
the same wavelength here. Do you agree, if confirmed, to appear 
and testify upon request before this committee?
    General Lute. Senator, I think, as I've demonstrated in the 
past in my current position as the Director of Operations, I 
fully respect the Senate's responsibilities for oversight, and 
I have demonstrated that by quick, responsive appearances 
before this committee a number of times. In this new position, 
I'm advised that I may not be in such a position as I have in 
the past. However, I'll do as directed by the White House.
    Chairman Levin. I think we all understand the situation. 
This has been a similar position that others have been in 
before, and your answer will be made part of the record.
    Senator Warner. Mr. Chairman, on that, could we request 
that the responses, which were somewhat more at length than 
what the General just said, be placed in the record at this 
point, taken out of the responses to the committee and put here 
for ease of reference by those studying the record?
    Chairman Levin. Yes, that's a good suggestion, and what we 
will do is take that answer--we'll leave that in the questions 
and answers which are already made part of the record. But in 
addition, what Senator Warner is suggesting is that we will 
take your answer to this particular question and, since it is 
more complete than the one you just gave, understandably----
    General Lute. Certainly.
    Chairman Levin. We will make that part of the record at 
this point.
    [The information referred to follows:]
Congressional Oversight
    In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information. Do you agree, if 
confirmed for this position, to appear before this committee and other 
appropriate committees of Congress?
    Response. During my service as the J-3 to Joint Chiefs of Staff, I 
have always honored my obligations to this committee to offer testimony 
when requested. With this new assignment, if confirmed, I am advised 
that as an Assistant to the President, principles designed to ensure 
that the President is provided with candid advice and to protect the 
autonomy of the office would apply to me as they do to preclude the 
testimonial appearances of other senior advisors to the President, 
especially as they concern matters of national security. I understand 
that these principles have applied to all other Active-Duty military 
officers who have served as senior advisors to the President, including 
those serving as National Security Advisor and Deputy National Security 
Advisor, in prior administrations.

    Chairman Levin. Do you agree to give your personal views 
when asked before this committee to do so, even if those views 
differ from the administration in power?
    General Lute. Yes, sir.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee, 
or to consult with the committee regarding the basis for any 
good faith delay or denial in providing such documents?
    General Lute. Senator, I think the answer there is very 
similar to the previous one: As directed by the White House.
    Chairman Levin. Well, here, though, it's a little different 
question because we're asking you if you have a good faith 
basis for denying the request will you give us the basis for 
your denial.
    General Lute. Yes, sir.
    Chairman Levin. Okay. Now, we would be delighted to hear 
from you, General. Again, we thank you for your willingness to 
take this position at the request of the President. We know 
that you did not seek this position. You have always performed 
your duties in a most professional manner. You have been 
somebody who has provided great service to this Nation and we 
are grateful for that, and we welcome you and we look forward 
to your opening statement.

 STATEMENT OF LTG DOUGLAS E. LUTE, USA, TO BE ASSISTANT TO THE 
  PRESIDENT AND DEPUTY NATIONAL SECURITY ADVISOR FOR IRAQ AND 
                          AFGHANISTAN

    General Lute. Thank you, Mr. Chairman.
    I'd like to at the outset join you in recognizing my wife 
Jane, who's sitting here behind me and has been a constant 
source of support for me, even while she contributes in a very 
senior position at the United Nations. It's a real pleasure for 
me and a great source of support that she's here today.
    Senator Warner. We share those views.
    Chairman Levin. Thank you so much. Again, our thanks to 
you, Mrs. Lute.
    General Lute. It's an honor to come before you today for 
this confirmation hearing. I want to express my sincere thanks 
to you, Mr. Chairman, to Ranking Member Senator McCain, and to 
Senator Warner for your prompt consideration of this 
nomination, especially given the other pressing demands before 
this committee.
    Also, to the members of the committee with whom I have met 
over the past several weeks, thank you for taking time to 
discuss this position and my nomination.
    To a person, those with whom I have spoken conveyed two 
clear messages: first, a message of concern for the wellbeing 
and safety of our men and women in harm's way; and second, that 
we would all like to see us pursue a course of action that 
makes our country safer while safeguarding our national 
interests in the region. Surely we could call this the common 
ground.
    America is at war, and the conflicts in Iraq and 
Afghanistan represent what we in the military call the main 
effort in the long war. The stakes for these two countries are 
certainly high, as they are for all the countries in the 
region. But the stakes for the United States are also high. 
This region, where America has vital national interests, will 
not succeed if Iraq and Afghanistan do not succeed. The U.S. 
plays a vital role in this cause.
    Where are we today? Not where any of us would like. 
Especially in Iraq, progress has been too little and too slow. 
No one is satisfied with the status quo, not the Iraqis, not 
the key regional partners, not the U.S. Government, and not the 
American people.
    To change this, we are in the midst of executing a shift in 
course, as announced by the President in January. Early results 
are mixed. Conditions on the ground are deeply complex and 
likely to continue to evolve, meaning that we'll need to 
constantly adapt. Often in an environment as complex as Iraq, 
measures that fix one problem in turn reveal challenges 
elsewhere.
    But one factor remains constant: the dedication and 
sacrifice of our men and women, military and civilian, serving 
in these combat zones. They're a continuing source of 
inspiration to me and to my family.
    The position for which I have been nominated is designed 
for one fundamental purpose, to advise the President on how to 
provide our troops and civilians in the field with increased, 
focused, full-time, real-time support here in Washington. It 
will do so in two basic ways: by executing policy decisions 
comprehensively; and by developing policy adaptations to meet 
changing needs on the ground.
    If confirmed, I will report directly to the President. I 
will brief him daily and act on his instructions in fulfilling 
my duties. I will work closely with National Security Advisor 
Steve Hadley to clarify priorities, establish milestones, 
provide follow-through, and set the policy development agenda. 
The aim is to bring additional energy, discipline, and sense of 
urgency to the policy process. Our troops deserve this support.
    Mr. Chairman, I'm a soldier and our country is at war. It's 
my privilege to serve. This position represents a major 
personal challenge and I'm humbled by the responsibility it 
entails. If confirmed, I will give the President my 
straightforward, candid professional advice. I ask for the 
support of this committee for my nomination. Thank you, sir.
    Chairman Levin. Thank you, General.
    We'll have an 8-minute round to begin.
    You stated both in your answers to the questions for the 
record and publicly that you were skeptical about the surge at 
the time it was decided upon. You and I talked about this next 
question yesterday in my office. Were the reasons for your 
skepticism you believe justified by the events that have 
occurred?
    General Lute. Senator, I'd reply by saying I think the 
bidding is still out. I expressed concerns in the policy 
development phase, as you mentioned in your opening remarks, 
that this not simply be a one-dimensional surge, that is a 
military-only. We have taken steps on other dimensions inside 
the U.S. Government and the Iraqi Government has taken some 
steps to demonstrate that it understands that it must surge, if 
you will, alongside of us.
    I'd assess at this point that the Iraqi participation in 
the surge has been uneven so far, and I think we're in the 
early days and time will tell.
    Chairman Levin. Do you still retain some of your skepticism 
overall about the chances of the surge succeeding?
    General Lute. Senator, I think as a military planner and an 
operations officer, skepticism is a bit of a genetic setting. 
We are constantly looking at what's happening on the ground----
    Chairman Levin. I'm not sure what that means.
    General Lute. What I mean by that is it comes naturally. We 
are constantly looking at developments on the ground, assessing 
them and asking, what if this, what if that. So I think we're 
very much in that phase of this operations, where we're still 
assessing.
    Chairman Levin. During the last few years, General, what 
other differences have you had with U.S. policy on Iraq?
    General Lute. Senator, I'm trying to recall. I believe that 
the policy review that we've just discussed was really the 
first time I had an opportunity to participate first-hand in 
the policy process.
    Chairman Levin. My question's a little different, though: 
What other differences have you had, not as part of the policy 
process, but you personally? What other differences have you 
felt?
    General Lute. Senator, I believe that as I've watched this 
for 3 years I've come away with three personal lessons, if you 
will, that reflect my observations over those 3 years. One is 
that there's no purely military solution to this fight; second, 
that there's no American-only solution or purely American 
solution to this fight; and then third, that we can't look at 
Iraq and Afghanistan and the problems there without seeing them 
through the lens of the region in which they exist. I'd suggest 
that any differences or concerns I've had in the past 3 years 
can be logged under those three categories.
    Chairman Levin. Would you say that the way you've described 
them reflects the differences that you felt during those 3 
years?
    General Lute. I think that's right, yes, sir.
    Chairman Levin. Now, the report in the Washington Post a 
few weeks ago said the following: that in an interview with 
Charlie Rose of PBS in January 2006 that you said that the 
military wanted ``to see a smaller, lighter, less prominent 
U.S. force structure in Iraq, both to undercut the perception 
of occupation and to prevent'' what you called the ``dependency 
syndrome, the notion that U.S. forces will do what is necessary 
and therefore local forces do not need to step up.''
    Is that an accurate statement of your feelings at the time?
    General Lute. It is, Senator.
    Chairman Levin. Does that remain your feeling?
    General Lute. It remains to the extent that those two 
factors, the perception of occupation and what I called at the 
time the dependency syndrome, are still factors to be taken 
into account as we plot the way forward in Iraq.
    Chairman Levin. Do you worry that the Iraqis might have a 
dependency syndrome?
    General Lute. Senator, I worry any time that we charge 
young Americans to go out and work alongside an emerging 
security force, like the Iraqi force, but like others we've 
worked with across this region and beyond, that the sorts of 
people we recruit and train into our Armed Forces are can-do, 
positive, very affirmative and aggressive individuals, and it's 
not always easy for them to step aside and let their hosts or 
their local counterparts, step forward. So I think that's a 
concern.
    Chairman Levin. That's a concern that you have about our 
professionalism. I'm talking about the Iraqis' dependency 
syndrome. Are you worried that they might have a dependency 
syndrome?
    General Lute. That's a concern, Senator, and it's largely 
based, as I said, on how we approach our duties alongside the 
Iraqi forces.
    Chairman Levin. In the last year and a half since January 
2006, we have not had a smaller, lighter, less prominent U.S. 
force in Iraq to undercut what you call the ``dependency 
syndrome.'' Would you agree we have not carried out that goal 
in the last year and a half?
    General Lute. Senator, I agree that we have not. However, I 
believe that statement was made in January 2006. In February 
2006, of course, we saw the Golden Mosque bombing in Samarra, 
which dramatically changed the conditions on the ground.
    Chairman Levin. You've said, I think, that you don't 
believe that there's a military solution for the violence, that 
Iraqi politicians must work out reconciliation issues in order 
for Iraq to have a successful outcome. Is that a fair 
statement?
    General Lute. It is.
    Chairman Levin. What leverage does the United States have 
to get the Iraqi political leaders to make the political 
compromises which are necessary for a political solution? For 
instance, do you think that U.S. troops' presence and the 
protection that we offer to the Iraqi Government in the Green 
Zone provides leverage and that therefore at least the 
possibility of reducing U.S. troop presence needs to be 
considered as a leverage method?
    General Lute. Senator, I would look at the current state of 
affairs slightly differently. I will come to the question. I 
think that this isn't solely a question of leverage. I believe 
that the Iraqi Government is committed to the sorts of 
benchmarks that Senator Warner mentioned and that are now in 
the most recent bill.
    The question in my mind is not to what extent can we force 
them or lever them to a particular outcome, but rather to what 
degree do they actually have the capacity themselves to produce 
that outcome and, if produced or if pressed too hard, will we 
in turn end up with an outcome that isn't really worth the 
paper it's written on? So I take that slightly from a different 
perspective.
    Chairman Levin. You indicate it's not solely a matter of 
leverage. Is it at least partly a matter of leverage?
    General Lute. I believe that we have asserted leverage to 
the extent that the Iraqi Government officials clearly 
understand that we're providing critical stability for them and 
critical security for them, especially in the face of this 5-
brigade plus-up in Baghdad proper. We're giving them a golden 
opportunity that they must seize to make progress on the 
political front. I don't think there's any doubt in the mind of 
any Iraqi politician that this is an opportunity they have to 
seize.
    Chairman Levin. Should there be consequences if they don't 
seize it?
    General Lute. I accept that might in some views increase 
the leverage on these Iraqi officials, and it ought to be a 
dimension of future policy consideration.
    Chairman Levin. When you say ``in some views,'' is that 
your view?
    General Lute. Senator, only to the extent that, as I just 
indicated, I have reservations about just how much leverage we 
can apply on a system that is not very capable right now.
    Chairman Levin. Is it your view that to some extent at 
least that leverage may be useful?
    General Lute. Senator, I agree that it ought to be 
considered, that it may be useful.
    Chairman Levin. My time is up. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    I'd like to pick up on your last statement, which I found 
to be a very profound one, and I think it's one that the 
chairman and I and others agree with. Right now you said, your 
words were, yes, there is a measure of leverage we have, but 
your concern is about the capacity of the current elected 
government to do those things that we set out in the 
benchmarks. I think you said that at this time they're not 
capable.
    Would you like to amplify that, because that goes to the 
very heart of what we're faced with in this situation in Iraq?
    General Lute. Senator, what I meant by the government of 
Iraq's capacity is simply that I think it's useful for all of 
us to remember that this government was formed for the first 
time just a year ago. They're at the 1-year mark. Further, this 
is the first government of its kind, duly elected, founded on a 
constitution which was endorsed by the Iraqi people, in the 
history of Iraq.
    So in these very early days of capacity-building inside the 
Iraqi Government, I just caution that we should be aware that 
this is a very immature, still emerging government.
    Senator Warner. But I say to you--and you know more about 
this than I do--we're paying a very heavy price to allow them 
to grapple with seizing the reins of sovereignty. We're losing 
brave soldiers, their lives, every week. Many more wounded 
seriously for life every week. It is a balance that this 
Congress, this President, and the American public must look at 
each and every day. Put aside the enormity of the money. 
There's nothing more precious to us than our military and their 
families, and they have given a full measure.
    When I listen to witnesses that say, yes, the government's 
only been in business a year, yes--wake up. We're paying a 
heavy price for them to establish this government.
    General Lute. Senator, if I may.
    Senator Warner. Yes.
    General Lute. Those young men and women walking the streets 
of Baghdad, Ramadi, Kirkuk, and other places today, Kabul, 
Kandahar, and so forth, are foremost in my mind, and they're 
absolutely behind my motivation to seek this appointment, seek 
this nomination, your confirmation of this nomination, and try 
to make a difference here in Washington. I share your concern 
for those young men and women.
    Senator Warner. I think we're progressing. Congress has now 
required the President to come back up here by July 15 and give 
us a current assessment, not wait until September. September 
obviously is a critical period of time, but we need an interim 
report. I look forward, as do other members, to receiving that 
from the President. But foremost in our mind is the price that 
we're paying to allow this government to constitute itself.
    Now, the question is--I've looked at the history of a 
number of your predecessors and they had various ranks. I 
personally am not concerned that simply you're a three-star as 
opposed to a four-star, yet you will be dealing with four-stars 
almost on a basis of equality. But they must recognize, those 
four-stars that deal with you, that you are the Assistant to 
the President and in many ways speaking for him and advising 
him.
    Do you see any impediment by virtue of the disparity in 
rank that you have with the seniors that you will be dealing 
with?
    General Lute. No, Senator, I don't.
    Senator Warner. I'm confident that is the case.
    Now, interagency. This committee has spent a good deal of 
time--actually, we passed some provisions into law to enable 
the various Cabinet officers, secretaries, administrators, and 
the like, to induce their employees, more and more of them, to 
take up responsible positions in Iraq. In our discussions that 
you and I have had over the years, we recognize and are in full 
agreement this cannot be resolved solely by the men and women 
in uniform, together with our coalition partners. It has to be 
an all-out effort across the board by our Federal Government, 
and I think we have to acknowledge that has not occurred, and 
even to the satisfaction of the President. In conversations 
that I've had with him, and I've been in meetings where he, in 
the presence of his senior Cabinet officers, has urged that 
cooperation.
    Now, that is part of your portfolio. Can you give us some 
insight into how you intend to approach the need to get further 
participation, whether it's the Department of Agriculture 
trying to help restore agriculture in Iraq, whether it's trying 
to restore a judicial system, or maybe not restore, create a 
judicial system in Iraq? What are the criteria and how do you 
intend to go about it?
    General Lute. Senator, if confirmed my plan would be to 
open, re-open actually because these communication channels 
exist now, but re-open, based on this new position, open 
communication channels with General Petraeus in Iraq and 
General Daniel McNeil in Afghanistan and Ambassador William 
Wood in Afghanistan and Ambassador Ryan Crocker in Iraq, and 
ask them for their priorities for the sorts of interagency 
support that you're suggesting here.
    So rather than base it on old priorities, perhaps 
priorities that linger from the past, I'd ask them for a fresh 
assessment of what their priorities are and then focus like a 
laser on meeting those commitments.
    Senator Warner. If you see and learn from the various 
Cabinet officers that there's a deficiency in the law, I would 
hope that you would ask the President to promptly send to 
Congress such legislative requirements as may be needed to make 
certain all America is in this operation.
    Now, of recent there's been a great deal of focus on the 
Baker-Hamilton report. I personally have the highest regard for 
those two individuals and the committee that put together that 
report. I had a small hand in creating the situation which gave 
rise to that report. I thought the report was very 
constructive.
    But in the light of the lack of progress with this surge in 
the minds of many Members of Congress and the American public, 
and other deficiencies that the chairman and myself pointed out 
that we see as far as the execution of our policy, some members 
are turning to that report--bills were filed this week in the 
Senate--as a redirection of efforts.
    I personally think we should certainly give the President 
through July before we act on trying to put any additional 
direction as to change of policy. That's my view. I'd like to 
have the President's review in July. But it seems to me that 
report is about 7 or 8 months old. It was written and put 
together in the fall of 2006, and some of the assumptions in 
that report--for example, I think they made a valid assumption 
that this government, duly elected, was proceeding to become 
more of a unity government, had set for itself benchmarks of 
achievement of certain legislative steps that would bring about 
reconciliation of the differences. That simply has not 
happened. So that assumption to me, which gave rise to their 
findings in that report, should go back and be reexamined 
before the report is embraced.
    Likewise, one of the assumptions is that the Iraqi security 
forces, which have been in training now for some several years, 
were gaining strength. I personally, just speaking for myself, 
am not entirely satisfied with the measure of their 
participation in the surge. We hear reports now that their 
units are rolling over, as the chairman said, in a period of 90 
days, when our troops are there for a year or more, and this is 
causing friction.
    Their table of organization is well below what is 
constituted as needed for a viable fighting force. Today I 
understand some of their units are marginally at 50 percent of 
their full strength. Now, that's another assumption made by 
Baker-Hamilton which I feel, no criticism to Baker-Hamilton, 
but the assumption just hasn't proven out over time.
    So as we go forward and await the President's assessment of 
this program on July 15, I think we should forestall any 
direction of Congress to try to dictate or suggest or in any 
other way to the President what's to be done, until we get his 
report on those issues.
    I yield the floor.
    Chairman Levin. Thank you very much, Senator Warner.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    General Lute and Mrs. Lute, thank you very much for your 
service. We welcome you here today.
    I was just thinking as I've had the chance to get to know 
you, General, and hearing you today that some of the most 
impressive people I have met in my lifetime wear the uniform of 
the U.S. military, and you're one of them. It's really quite 
remarkable and we all have a lot to be grateful for. This goes 
from the military police who are walking the beat in Baghdad 
right to the top. I thank you very much for your service.
    What I really mean to say is, I haven't met anybody in the 
private sector who's any better than the best that we have to 
offer, that you offer your country, and the others you serve 
with in the military. I thank you for it.
    I was struck--you said some very important things in your 
opening statement and your answers to the questions asked by 
the chairman and by Senator Warner. Just in your closing 
paragraph you said quite simply: ``I am a soldier and our 
country is at war. It is my privilege to serve.'' That's a real 
sense of personal ethics and also national purpose, that really 
continues to distinguish our military. I thank you for saying 
that.
    Again, I just went to Iraq last week and that's exactly--
even in the midst of dissent, even when soldiers tell you, I'm 
not sure it was right for us to be here, or they wonder about 
how it's going now--most of them don't, but some do--there's a 
tremendous commitment to try to make it work and a pride in 
being in service. It should be, and it is I believe, an 
inspiration to us all.
    I appreciate your opening statement because in a couple of 
your paragraphs you put this in context. I think it's very 
important for us to look at Iraq and Afghanistan as not 
isolated. You said--I'm going to quote because these are strong 
words--``America is at war and the conflicts in Iraq and 
Afghanistan represent what we in the military call our `main 
effort in the long war.' '' I presume, parenthetically, we're 
talking here about the war we're engaged in against the 
Islamist extremist terrorists who attacked us on September 11. 
Am I right about that?
    General Lute. That's right, Senator.
    Senator Lieberman. Then you go on to say: ``The stakes for 
these two countries, Iraq and Afghanistan, are high, as they 
are for all the countries in the region.'' That's what I found 
last week when I was there. I visited three of our best Arab 
allies and Israel, and there is a profound sense of a conflict 
there between the extremists and everybody else, in some sense 
more directly between al Qaeda and Iran and in the rest of the 
region, and that is part of what's going on in Iraq and 
Afghanistan.
    ``But the stakes for the U.S. are also high,'' you say. 
``This region, where America has vital national interests, will 
not succeed''--the region won't succeed--``if Iraq and 
Afghanistan do not succeed, and the U.S. plays a vital role in 
this cause.''
    So you have quite powerfully, directly put what's happening 
in Iraq and Afghanistan in what I believe is the correct larger 
context of the war against Islamist extremism and of an entire 
region in which, and I quote you again, ``the U.S. has vital 
national interests.'' I think it's very important as we go 
forward that we understand all of that.
    Let me just ask you this briefly as my time is limited. You 
say the stakes for the U.S. are high in what happens in Iraq 
and Afghanistan. You use the word ``succeed.'' What are the 
negative consequences for the U.S. if we don't succeed in Iraq 
and Afghanistan and what are the positive consequences if we 
do?
    General Lute. Senator, thank you for those comments. I 
think the long-term, and I would even say the most vital 
interest at stake in Iraq, Afghanistan, and the regions in 
which these countries exist begins with defeating al Qaeda. It 
is very clear that al Qaeda has made it a matter of priority to 
reestablish a physical safe haven, which they lost when they 
were driven from Afghanistan. They'd like to retake Afghanistan 
and move back to that safe haven. But they now have declared 
their main effort to be in Iraq. So first of all, we have this 
interest of denying safe haven.
    Senator Lieberman. Excuse me a moment. I thank you again 
for that comment. So therefore I presume you would say that 
anyone who says that we should pull out of Iraq so we can focus 
on fighting al Qaeda has missed the point that, in fact, al 
Qaeda today is our main enemy in Iraq?
    General Lute. I'd argue that that's correct, yes, sir.
    Senator Lieberman. Thank you. Please continue.
    General Lute. Second of all, there are longstanding, 
enduring relationships, security partnerships that we have in 
the region, some of the countries that you visited. We have an 
obligation to them in an effort to build longstanding stability 
or enduring stability in the region.
    That of course is linked as well to another interest, and 
that is access to key natural resources. Then finally, I think 
over the last years there's an increasingly important national 
interest with regard to our future strategies toward Iran.
    So at least in those four areas, I think there are things 
that should draw our attention to the regional dimensions of 
what's happening in Iraq and Afghanistan.
    Senator Lieberman. Therefore, how important it is to do 
everything we can, within reason obviously, to succeed and 
avoid failure there?
    General Lute. I agree, Senator.
    Senator Lieberman. General, I appreciate, I know there has 
been some media interest in the fact that in some sense you've 
been portrayed as an opponent of the surge. But I think in your 
answer to the question that you submitted to the committee you 
again were right on target. ``I participated''--I quote from 
you--``in the policy review prior to the President's decision 
to go into the surge. I registered concerns that the military 
surge would likely have only temporary and localized effect 
unless it were accompanied by counterpart surges by the Iraqi 
Government and by the other non-military agencies of the U.S. 
Government. The new policy took such concerns into account.''
    I can tell you that I certainly saw that when I went over 
there last week. On one occasion I was briefed by one of our 
brigade combat teams that has jurisdiction over a large area in 
Baghdad, including the Haifa Street area, which was a scene of 
terrible street combat and now is totally calm. I believe the 
colonel in charge. He was most impressive. Colonel Roberts, I 
believe, was his name. It was most interesting to me that they 
made a presentation of what their goals are. They had eight 
goals for the area of their responsibility. The first one was 
military. The other seven were non-military. So I think the 
position you argued for is being reflected on the ground, and I 
believe with some success.
    This gets to the point, which is the question always 
raised, do we, those who support the policy, somehow think that 
there's a strictly military solution to the violence in Iraq? I 
can tell you I don't. I know you don't. I'll ask you, do you 
agree that the President of the United States, the Commander in 
Chief, doesn't think that there is a strictly military solution 
to the problem in Iraq?
    General Lute. Senator, I believe the President stated that 
very clearly and certainly the policies that are in place right 
now reflect that.
    Senator Lieberman. I know that the same is true, but I'll 
ask you, of General Petraeus, who's now commanding our forces 
there?
    General Lute. I believe that's a strongly held belief by 
General Petraeus as well.
    Senator Lieberman. My time is up, but I thank you for your 
service. The final word I would say is this. The U.S. military 
is carrying out an enormous range of responsibilities with 
great effect, including mostly responsibilities that are non-
military. I saw the beginning of some of the provisional 
reconstruction teams with personnel from other agencies there. 
Frankly, I don't think the other agencies of the U.S. 
Government are carrying a fair share of the responsibility 
today in Iraq, and I hope you will do everything you can to 
push them to do that. I'd say our military is in some sense 
involved in the most ambitious, important effort of national 
reconstruction that America has made since the Marshall Plan. 
But they need some help from the non-military sections of our 
Government.
    Thank you.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    General, welcome. For the record, let me say there's no one 
in the uniform of the United States Army I admire more, respect 
more. I've had the privilege of knowing you not only as a 
professional, a colleague, but also as a friend. I have known 
your wife longer and as someone who has distinguished herself 
as an Army officer, and we have similar ties to West Point.
    I am certainly going to support you, couldn't do otherwise. 
But, to be blunt, I don't think I'm doing you a big favor.
    My sense is, if you step back, your appointment represents 
a devastating critique of the national security apparatus of 
this White House, because all you're being asked to do was what 
Stephen Hadley and Dr. Condoleezza Rice were supposed to be 
doing for the last several years--identify problems, coordinate 
resources, bring it to the attention of the President, and get 
presidential direction. That has been abysmal.
    I think also, I'm afraid that your position will be someone 
who's there to take the blame, but not really have the kind of 
access to the President and the resources you need to do the 
job. I presume you will be reporting to Mr. Hadley?
    General Lute. No, sir. I'll be reporting to the President 
and coordinating with Mr. Hadley.
    Senator Reed. Mr. Hadley will be reporting to the President 
independently?
    General Lute. On matters outside of Iraq and Afghanistan, 
yes, sir.
    Senator Reed. That I find interesting. Frankly, 
Afghanistan, Iraq, and, related to that, Iran, are the most 
critical foreign policy problems we face, and the National 
Security Advisor of the United States has taken his hands off 
that and given it to you? Is that your understanding?
    General Lute. Sir, that's the design, yes.
    Senator Reed. Well, then he should be fired, because, 
frankly, if he's not capable of being the individual 
responsible for those duties and they've passed it on to 
someone else, then why is he there? That's my view.
    In fact, I think if the President was really serious he 
should replace Mr. Hadley, appoint you as a civilian, not as an 
Army officer. Also, if he didn't choose to do that, replace 
General Pace with you, because we do need a change in direction 
and policy.
    I just fear that you're going to be placed in an impossible 
situation. I know why you're doing this job. It's because at 
the core you're a soldier, because you understand what those 
young men and women are doing out there, so you couldn't do 
anything less. But I am very concerned that this is not going 
to work. It is another political, public relations ploy, rather 
than a significant change in strategy.
    My respect for you is such that certainly I'll support you. 
I wish you well, and if there's anything that you think I can 
do to assist you please call upon me.
    General Lute. Thank you, Senator.
    Senator Reed. Thank you.
    Chairman Levin. Thank you, Senator Reed.
    Let me just clarify one thing. Your answer is so critically 
important here. Is there a written description of your job 
which states what you have just said to Senator Reed, that you 
are going to report to the President on Afghanistan and Iraq 
and that Hadley does not have that any longer in his portfolio? 
Is that in your written description?
    General Lute. It is, sir. The best written description is 
perhaps the response to the first policy question, which is an 
extract of the job description itself.
    Chairman Levin. But it excludes Hadley reporting.
    General Lute. No, sir.
    Chairman Levin. The way you described it, though----
    Senator Warner. The way you described it, you indicated----
    Chairman Levin.--you have that chunk of his portfolio.
    General Lute. I believe that's right. It does not exclude 
him from also advising, but the responsibilities for advising 
for Iraq and Afghanistan, if confirmed, will be mine.
    Chairman Levin. I agree with Senator Reed. I view that as 
an astounding indictment and a bifurcation of the national 
security job. Now there's two national security advisors to the 
President, one on Iraq and Afghanistan and one on everything 
else, despite all the relationship between Iraq-Afghanistan and 
everything else. I think that Senator Reed has put his finger 
on a very decisive point here and I find it, with him, kind of 
astounding that that has been done.
    That's not your doing, by the way. This is not in any sense 
a criticism of you. It's quite the opposite.
    I also agree with what Senator Reed said about you and why 
you're doing this, because you're a patriot. It's that simple, 
and we thank you for that.
    Senator Bayh is next.
    Senator Bayh. General, I understand you're from Michigan 
City.
    General Lute. I am, Senator.
    Senator Bayh. Well, you come from good roots, but you've 
been given a tough assignment. I share my colleagues' concern 
that a good man has been put in a very difficult spot. I'm 
going to be for you, just as Senator Reed said, but I do have 
some questions I'd like to ask you your view.
    I think it's important for the American people to get as 
clear an understanding about the state of affairs in Iraq and 
Afghanistan as we possibly can. I also serve on the Senate 
Select Committee on Intelligence, so I hear from the 
intelligence world, as well as the military world. I've been 
struck over the years about the disparity sometime in the view 
of events and the state of affairs between the two different 
communities, and I'd like to ask you about that.
    We had a briefing in the intelligence world on Iraq last 
week and I'd like to share with you the consensus view of the 
Intelligence Community and get your reaction to that. Their 
overall consensus was that the trend in Iraq is negative. There 
are occasional bright spots--for example, some developments in 
al Anbar Province--but that those positive developments are 
within the context of an overall negative trend.
    Do you share that assessment?
    General Lute. I think, Senator, when you consider beyond 
simply the security setting, but also looking at the 
opportunities presented to the Iraqi Government to make 
progress on important political and economic measures along 
with the intent of reconciliation, that I share that at best 
the progress has been uneven.
    Senator Bayh. Let me follow up on that. There may be some 
convergence of opinions here. Their assessment was that the 
prospect for political steps in Iraq toward meaningful 
reconciliation among the different parties, that those steps 
toward reconciliation, the political steps, would be marginal 
at best through the end of this calendar year. We all agree 
that political reconciliation is sort of the key to this 
ultimately working out.
    I was interested in your colloquy with Senator Warner about 
your belief that they have the right intentions in terms of 
embracing the benchmarks, but don't have the capacity. I would 
encourage you to retain a healthy level of skepticism about 
that. I mean, these folks were thinking about taking 2 months 
off this summer. Now they've gone back on that, but where's the 
sense of urgency? Their country's at risk of falling apart and 
they just don't seem to grasp the need to move forward here in 
material ways.
    My question would be: Do you share the Intelligence 
Community's assessment that the political steps toward 
reconciliation are likely to be marginal at best through the 
end of this calendar year?
    General Lute. Senator, my assessment would be that they 
have a very full agenda and have shown so far very little 
progress.
    Senator Bayh. We were also told that the state of the 
insurgency, the level of violence and that sort of thing, was 
in all likelihood going to be about where it is today a year 
from now. Do you have an opinion about that?
    General Lute. Senator, in the absence of the kind of 
political and economic steps that are before the Iraqi 
Government now, if they don't make progress on those sorts of 
reconciliation measures, I'd share the view that we're not 
likely to see much difference in the security situation.
    Senator Bayh. You said our leverage was limited and that 
they are sort of feeling their way along here. As Senator 
Warner pointed out, I think many Americans are deeply concerned 
about asking our brave soldiers, who I know you care deeply 
about, to sacrifice themselves while a group of Iraqi political 
leaders get their act together. I think the American people 
understand the need for some degree of patience and resolve, 
but where's the evidence that they're doing their part?
    I would encourage you to focus on whatever leverage we 
have. Some of us have concluded--I think Senator Warner, 
perhaps others, will take a look at September and that 
timeframe--but they're just not doing enough. Trying to build 
up their confidence doesn't seem to have worked too well, and 
that perhaps the opposite strategy of saying, look, you're 
either going to do this or not, but you need to get on with it 
here, that perhaps that sort of approach might be more 
fruitful, because the other avenue just hasn't worked.
    General Lute. Senator, I'd just add, if I may, that while 
it's important for us to focus on the results coming out of the 
government of Iraq for the good of Iraq, that whatever those 
results the United States in my view retains long-term, 
enduring interests in the region, which has us with a national 
interest in the outcome in Iraq. So we have to balance what's 
good for Iraq with what's good for the United States in the 
region.
    Senator Bayh. I agree with that.
    General Lute. There's a careful balance here.
    Senator Bayh. But we have to pursue our interests in the 
most intelligent way.
    With regard to your colloquy with Senator Lieberman, my 
dear friend, about al Qaeda and that sort of thing, we cannot 
let al Qaeda define how most intelligently to pursue our 
national security interests. Which leads me to something else 
that the Central Intelligence Agency's top expert on radical 
Islam had to say last week. In his opinion our presence in Iraq 
is creating more members of al Qaeda than we are killing in 
Iraq. Do you have an opinion about that?
    General Lute. Senator, again, I think we have to balance 
those sorts of assessments, which I think have some 
credibility, with a gross adjustment in the other direction, 
which might feature leaving Iraq to al Qaeda. There has to be a 
policy balance struck here between what's good for Iraq and 
what's good for the region and what's ultimately good for 
America.
    Senator Bayh. A group of us just returned from Turkey last 
week and they're very concerned about attacks emanating from 
the Kurdish parts of northern Iraq. They feel that there are 
some camps there occupied by radical Kurdish groups. They had 
an attack in Ankara that killed several people and wounded 
dozens more. About half a dozen police officers were just 
killed, I think last week, in eastern Turkey.
    This is a legitimate concern for them. They feel that 
northern Iraq is being used as a safe haven for terror groups 
to launch attacks on them. They would like our cooperation in 
doing something about that. Otherwise they feel that they might 
be forced to take direct action, which could be very 
destabilizing in Iraq and probably not very successful in 
cleaning out the camps.
    Do you have any thoughts about what we can do to restrain 
those radical groups?
    General Lute. Senator, two thoughts on that. First, the 
Kurdish situation and the potential that Kurdish terrorists in 
northern Iraq may be influencing events inside Turkey 
demonstrates well, I think, this notion of needing to put the 
events in Iraq into a regional perspective. Usually when we 
talk about regional perspective we're talking about east to 
Iran or west to Syria or south to the Gulf States. I think 
north to Turkey is a very important dimension of the regional 
impact of Iraq.
    The other thing that strikes me is, to go back to my 
opening statement, this point of, in such a complex setting as 
Iraq, as we make a policy adjustment to take on a new dimension 
or adapt our policy towards a particular element of the 
problem, we have to be careful that that's viewed in the 
overall picture, because one adjustment may cause two or three 
other perhaps unintended consequences. I think the situation 
with the Kurds in the north is in that category.
    Senator Bayh. I would encourage you to look at that, 
because if the Turks for domestic political reasons feel that 
they're forced to take more overt action that could have 
consequences. My point simply was there are ways to deal with 
the fallout in Iraq that's not going well that might in fact be 
more effective than our current strategy there. This is 
something that we're going to ultimately have to make a 
decision about, whether the Iraqis have it within them to 
reconcile in a way that this is going to work. Ultimately, if 
we conclude that they don't, no matter how much we sacrifice, 
no matter how long we stay, we better have a backup strategy 
for dealing with the fallout of all of that as we begin to 
recalibrate our presence there, because it is important to the 
region, but many of us have concluded that our current way of 
pursuing our interest is just not very intelligent and is in 
fact harming our national security interests rather than 
buttressing them.
    My last question for you would be shifting gears a bit to 
Afghanistan. Pakistan is going through a turbulent time here. 
That tribal area along their western border has become, 
unfortunately, a safe haven for al Qaeda. You said they're 
searching for one in Iraq. They have one now in western 
Pakistan.
    President Musharraf has an election coming up, so he has to 
deal with that. But look, we have a right to expect them to be 
more aggressive and vigorous in dealing with those lawless 
tribal areas. I'd like to ask you, what is it reasonable for us 
to expect Pakistan to do to try and secure those areas, and how 
do we strike a balance between the worry of destabilizing 
Pakistan as they get more vigorous, or perhaps we might have to 
get more vigorous for them if they just can't do it, on the one 
hand, versus not doing enough or doing nothing and 
destabilizing Afghanistan?
    There's this tension there between destabilizing two 
countries, both of which we want to try and stabilize. How do 
you strike that balance? What specifically should we expect the 
Pakistanis to do, because they've more or less pulled back from 
those areas and that's led to an upsurge in Taliban activity?
    General Lute. Senator, if confirmed, this would be very 
high on my priority list, to deal with the unhelpful influences 
both by way of the al Qaeda safe haven, but also I'd mention 
the Taliban safe haven that exists in these border regions of 
Pakistan. My sense is that Pakistan has done a lot as a key 
ally in the war on terror, but I couple that view with the 
impression that they have to do more.
    I think there are things that we can do and that we're 
beginning to undertake now by way of making their tribal-based 
forces in the frontier regions more capable. I think that has 
some promise, but that will be a long-term effort.
    I think, more fundamentally, the key to the tribal regions 
in Pakistan have to be viewed in a tribal perspective, and that 
is essentially that the Pashtun people who reside there and who 
are giving safe haven to al Qaeda and the Taliban don't only 
reside there, and we have to look at this problem as the 
Pashtun community at large, which also includes vast areas of 
eastern and southern Afghanistan. So I'd look at it tribally in 
a more regional take and then see what we can do in a targeted 
way to improve the capacity of the Pakistani forces.
    Senator Bayh. Thank you, General. I wish you well. I'm 
going to vote for you. I would encourage you to have--and I'm 
sure you will--a particularly realistic view of the Iraqi 
political leadership, and constantly focus on what we can do to 
leverage them in the right direction. Ultimately we're going to 
have to conclude, are they capable of doing this? Not us, but 
them, with our assistance. Can they reconcile, make the hard 
political decisions, or are they just kicking the can down the 
road constantly and the situation is deteriorating, and at some 
point you reach the point of no return. I for one have 
concluded that a greater sense of urgency is in order here on 
their part or it's just not going to work.
    Thank you.
    General Lute. Thank you, Senator.
    Chairman Levin. Thank you, Senator Bayh.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    General, welcome to the process. I'd like to also give my 
regards to your family. As someone who grew up in the military, 
I know the sacrifices that they've had to go through to help 
you reach the position that you're in.
    Actually, my concerns here are twofold and they're not 
related directly to your credentials or to the issues of Iraq 
and Afghanistan per se. They first of all are related to how 
this position was created and second to my concerns, and 
they've been long-held concerns, about the possible confusion 
of civil-military relations when we have active duty military 
people over in political positions in an administration.
    The first thing--and I hope you will help clarify this for 
me--we hear that this position was created and at the same 
time--I spent 5 years in the Pentagon and the way this 
description is read and your description of it in your 
testimony about advising the President on these matters, 
helping to develop policy and these sorts of things, I don't 
see how that is not redundant to what we are expecting General 
Pace to do, what the Secretary of Defense ought to be doing, 
what the National Security Advisor should be doing if he were 
fully competent, the kind of advice that would be given from 
Admiral Fallon, for whom I have a high regard.
    Can you clarify for us the distinction there?
    General Lute. Senator, you're right. As you list those 
other principals in the policymaking team, the policy 
development team--the Secretary of Defense, General Pace as the 
Chairman of the Joint Chiefs, Admiral Fallon as the combatant 
commander for these two combat zones--that all of them 
participate in the policy development process.
    This position is slightly different in that I would advise 
directly the President of the United States in both execution 
matters and policy development matters on a full-time, 24-7 
basis. This is a very focused, limited portfolio position, 
while the Secretary of Defense, General Pace, and others who 
sit at the table at the principals committee in the 
policymaking table have responsibilities much broader than 
that.
    Senator Webb. I would submit--and this is not a knock in 
any way on your credentials--but I would submit that if those 
other individuals were properly doing their job, this position 
wouldn't be necessary.
    The second question that I have is, from the way that I 
read your statement and also from past experiences with people 
who are in uniform who move over into policy advisory and 
policymaking positions inside an administration, that's a real 
strain on the notion of civil-military relations, when you have 
a uniformed military individual making political judgments and 
giving political advice to a political administration.
    I'm interested in hearing your thoughts about that.
    General Lute. Senator, in my mind the key distinction is 
advice versus decisionmaking. I'm not in the decisionmaking 
chain. On the execution side, I'm not in the chain of command. 
I am simply one of a number of assistants to the President, and 
in this case I advise him on a relatively narrow portfolio.
    Senator Webb. Wouldn't that also describe Mr. Hadley's 
position? He's not a decisionmaker.
    General Lute. I think it does describe Mr. Hadley's 
position----
    Senator Webb. But in the decisions that are developed and 
in the advice that is developed there are political 
considerations.
    General Lute. Senator, I believe the President will turn to 
me, based on my background, my experience, and my expertise, 
and weigh most heavily on me or expect most heavily from me 
professional, candid, military advice.
    Senator Webb. Yes, but in terms of policy formulation 
political considerations have to come in play.
    General Lute. That's correct.
    Senator Webb. There will come a time, more than likely, 
history shows there will come a time when you will return to 
the military, I would assume.
    General Lute. Senator, we'll have to see how that goes, but 
that's my intent, yes.
    Senator Webb. So then you will return to the military, to 
the uniformed military, as an individual who has had a policy 
advisory position inside a political administration.
    General Lute. If I return to the military, yes, Senator, 
that'd be right. I'd return fully aware of the military chain 
of command into which I'm returning.
    Senator Webb. But also you would return as someone who--for 
instance, similarly, when I was Assistant Secretary of Defense 
I had a political position and an advisory position, but I was 
a part of an administration and I was identified with that 
administration. That concept with respect to civil-military 
relations has concerned me for a long time. I just want to put 
that on the table, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Webb.
    Senator Webb. Thank you for your testimony.
    Chairman Levin. Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    General, thank you. Thank you for your years of service to 
our country. I agree with my friend and colleague Senator Reed. 
I don't know why you would put yourself in this position, but 
I'm grateful that you saw that this was a way to continue your 
service. I wish you well in a position that many of us believe 
is an impossible one. We can only hope that perhaps you might 
be listened to where others have been ignored for some years 
now.
    General, one of my concerns is that there is growing 
pressure here in Congress, and it certainly is reflected around 
the country, that at some point in the not very distant future 
we will begin to withdraw our combat troops when it becomes 
abundantly clear, as I believe it already is, that the Iraqis 
are not yet done killing each other, they have no intention to 
reach political resolution, and there is no one in the Iraqi 
Government nor on the scene who appears able to emerge to try 
to force those political settlements that are absolutely 
essential to any kind of stability or security in Iraq.
    We may, as I have said, have remaining missions that will 
be concerned with al Qaeda, with the difficult position that we 
find ourselves in vis-a-vis the Kurds, the Turks, and the 
increasing pressure on the Kurds from the Sunnis to the south, 
as well as perhaps a continuing training and logistical role if 
the Iraqis get their act together, as well as protecting our 
interests and attempting to figure out what to do about Iran 
going forward.
    I do not foresee a long-term role for our combat brigades 
in the midst of this sectarian civil war. So to that end, since 
we know it will be difficult, timeconsuming, and dangerous to 
withdraw our troops and our equipment, I wrote to Secretary of 
Defense Gates on May 23, and gave a copy of my letter to 
General Pace, asking for briefings on what exactly the planning 
was with respect to future, maybe even imminent, withdrawals of 
U.S. forces from Iraq.
    Mr. Chairman, I ask unanimous consent that my letter to 
Secretary Gates be made a part of the record.
    Chairman Levin. It will be made part of the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Clinton. Certainly while sitting on this committee 
both in public and in private encounters and conversations it 
has disturbed me that there seems to have been only the most 
general of contingency planning with respect to withdrawal. I 
believe that withdrawal will be extraordinarily dangerous for 
our troops. There are basically two ways out: up through the 
north, assuming the Turks let us come out, and they didn't let 
us come in, so that's a challenge--perhaps they will see their 
interests differently--or through the south, along highways 
that will be very difficult to control and protect. We know 
that a great number of our casualties and injuries occur 
because of the IEDs and now the more powerful explosives that 
attack our convoys.
    General Lute, I hope that among your many responsibilities 
that you have assumed that you will look at this. May I ask 
you, if you will, please turn your attention to this issue, 
determine what level of planning has taken place, whether the 
Secretary of Defense and the Joint Chiefs have been briefed 
about the level of planning, what kind of timeline would exist 
if a decision for either military or political reasons were 
taken to begin withdrawal, and that you would assume this to be 
part of your responsibility in your new position.
    General Lute. Thank you, Senator. I do think such an 
adaptation, if the conditions on the ground call for it, will 
be part of this position.
    Senator Clinton. Thank you very much, General.
    I think that among the many concerns that we have expressed 
to you are the confusion over responsibilities and chain of 
command. In fact, I think that has been an unfortunate hallmark 
of this administration's policy toward Iraq from the very 
beginning. It was unclear who was in charge after the invasion. 
It certainly was opaque at best as to the extent of authority 
exercised by Ambassador Paul Bremer. There's been a tremendous 
amount of difficulty and lack of accountability up and down the 
chain of command because there have been so many detours and 
other actors that have been involved.
    I think that one of your challenges will be trying to sort 
all that out. It is certainly my opinion that the Vice 
President's office has played a major role, continues to play a 
major role, and runs a parallel operation. What is your 
understanding of your responsibilities vis-a-vis the Vice 
President?
    General Lute. Senator, as I've said, I'll work directly for 
the President. But of course the Vice President is on the 
policy council, if you will, the principals committee of the 
National Security Council, and as such is an important 
participant in policy development considerations. So as I work 
with the President to set the agenda for that council, I'll be 
working with the Vice President and his staff.
    Senator Clinton. I wish you well, because certainly that's 
turned out to be a difficult situation for many. I don't know 
quite how we ever really determine what the chain of command 
inside the White House is. But certainly I think it's important 
that whatever your advice is, it be given directly to the 
President on a regular basis, and it would be my very strong 
recommendation, if you haven't already negotiated that, that 
you certainly try to obtain that assurance that you will be 
working with and directly reporting to the President.
    Finally, the question that Senator Bayh raised about Turkey 
I think is increasingly critical. During the past few weeks 
there has been an increase in tension between Turkey and the 
Kurds, with the Turks bitterly complaining about continuing 
Kurdish separatist attacks. I don't know that we've had a very 
good briefing on that, Mr. Chairman. I can't figure out what is 
and isn't really happening. We know that there's a great deal 
of enmity between these forces. I'm told by the Kurds that 
they've tried to put a stop to the separatist actions. I don't 
know whether that's true. So I think it's important that we try 
to sort it out.
    Turkey is a very important ally of ours and I know that, 
given some of the internal discontent and political upheaval 
going on in Turkey, that there is tremendous nationalist 
pressure on the Turkish military to respond to these attacks. 
It's been reported that there was last Sunday an ambush and 
killing of eight Turkish military personnel inside Kurdish 
territory. Yesterday there were unconfirmed reports that some 
Turkish military units crossed over the border to conduct raids 
and limited clearing operations in suspected militant camp 
locations.
    I just urge, General, that you pay immediate attention to 
this. I know that General Joseph Ralston was appointed as a 
presidential envoy some time ago to the Turkish government. I 
think this demands the highest and most urgent attention. 
Clearly it is not in anyone's interest that the Turks cross the 
border en masse and the Kurds need to understand that it is not 
in their interest. But I would not be surprised to discover 
that there were agents, provocateurs within the Kurdish area 
either operating outside of the two principal Kurdish lines of 
military command or in some back room deal involved with a few 
people in Kurdistan, that needs to be reined in, if possible.
    This situation is dangerous and difficult enough. We 
certainly don't need to see it explode in the north.
    General, I too will be supporting you because of my high 
regard for you, what I know of your record, for those like 
Senator Reed who are incredibly admiring of your service, which 
I share. I hope that you, since you will be confirmed by the 
Senate, will see it as part of your continuing responsibility 
to keep Congress apprised of what is happening with your work.
    General Lute. Thank you, Senator.
    Chairman Levin. Thank you very much, Senator Clinton.
    Senator Sessions.
    Senator Sessions. Thank you, General. We appreciate your 
willingness to take on this difficult and important task. For 
some time I have believed that we needed more intensive 
management from the President to really make sure that all the 
various agencies and departments that are involved in Iraq and 
Afghanistan are operating at the highest level of 
cooperativeness and effectiveness.
    For several years now, I have pointed out that 
responsibilities such as the economy, oil production, water, 
electricity, and others are the responsibility of the State 
Department or other Government departments than the military. 
My personal view is the military has performed extraordinarily 
well. I believe, however, that they probably could have done 
more in these other areas, but because other departments were 
given that responsibility there's been some confusion about 
responsibilities.
    In areas involving the Department of Justice (DOJ) and the 
legal system, in my view there are too few personnel there. 
Likewise, there are areas in which the State Department has not 
functioned well because they do not have enough people in the 
country, and at times the level of coordination has not been 
effective.
    I have recommended that the President appoint someone like 
yourself to be his personal representative, his personal 
advisor, who can identify the problems that are not getting 
addressed and report them to him immediately so that he can use 
his power, his decisionmaking authority, to make it happen. 
Sometimes it takes an absolute direct decision by the President 
to end logjams and uncertainties about responsibilities and in 
a life and death situation like Iraq I don't think we've been 
getting that done sufficiently. I think you can really help. I 
think it would be a really positive step.
    I believe Mr. Hadley has a tremendous challenge. He has a 
worldwide challenge. He's with the G-8 and the President today 
I think. He has China, he has South America, he has Africa, he 
has Russia, all of those things on his plate that the National 
Security Council does; and I'm not sure they are configured or 
ever were considered to be an entity to really get into the 
details of managing the difficulties that we are facing in Iraq 
today. I think the President has done well in choosing a 
military person who has real background in that area who has 
the gumption to identify problems and confront them and help 
him solve them. So I want to say that to you first.
    Now, as I understand this you won't have a team that would 
actually execute any proposal. Basically what you would do is 
if there's a conflict in responsibility or disagreement, let's 
say about how to establish a court system in Iraq, which I 
think is way behind its schedule, you would figure out what you 
thought was a solution and make a recommendation to the 
President to help him issue the directives that could solve 
that problem. But you wouldn't have people on your own staff to 
go out and operate a court system. You would use the personnel 
that are already there for that. Is that correct?
    General Lute. That's correct, Senator. The execution will 
continue to reside with the executive departments, as it does 
today.
    Senator Sessions. About how many staff personnel do you 
expect to have?
    General Lute. I have a small staff of about 10 or 12 
people, sir.
    Senator Sessions. So really it will be your personal 
leadership and your personal determination that will get to the 
bottom of these things and to give the President the best 
possible advice. I mean, you're not going to be depending on a 
big staff. You're going to be doing this personally.
    General Lute. That's correct, Senator.
    Senator Sessions. I think that's important. I think we need 
some person of your stature, of your experience, to personally 
get involved in these matters.
    For example, on the question of creating an effective legal 
system in Iraq, I concluded that Iraq has one-ninth as many 
prison bed spaces as they have in my State of Alabama, which 
isn't much different than the national average, and they have a 
real problem with violence. I've been told DOJ is adding some 
more prosecutor advisors. I've been told we are adding some bed 
spaces and that we're doing some of the things that I had 
previously suggested, which is sending judges out to try cases 
in distant areas of Iraq so that the local judges' families 
wouldn't be threatened.
    I guess what I'm saying is I think somebody needs to look 
at this and say, adding just a few more DOJ personnel and 
adding another 10,000 bed spaces may not be close to enough, 
and that we need to do 3, 4 times as many and do it promptly. 
Would you be willing to make those kind of decisions and say, 
status quo is not enough; we need to make dramatic change here?
    General Lute. Senator, I think the key here is to go to 
General David Petraeus and Ambassador Ryan Crocker, get from 
them sort of the ground truth in terms of where our priorities 
should fall, and then once the President is advised of this 
assessment, renders a decision, oversee and coordinate the 
policy execution. I think I agree with everything you've said. 
I would only add that I think that General Petraeus and 
Ambassador Crocker are the key inputs to which issues should be 
priorities.
    Senator Sessions. You spoke wisely there. That's certainly 
true. But I guess what I have perceived is that with regard to 
other agencies than the Defense Department, that people will 
tell you they're making progress, but if you look at the entire 
picture it's not nearly enough. I know that Senator Levin and 
all of us believe that infrastructure, governmental 
improvements, political improvements, are necessary, and the 
military can't carry this ball alone.
    Would you agree that one of the key components of any 
success we might have in Iraq is to make progress in those 
areas other than just the military?
    General Lute. Absolutely. I think the military performs or 
provides a necessary contribution to this picture, but by 
itself it's insufficient.
    Senator Sessions. You served, I believe, on the staff of 
General John Abizaid?
    General Lute. Yes, sir.
    Senator Sessions. What was your position and how long did 
you do that?
    General Lute. For 2 years I was General Abizaid's 
operations officer, his J-3 as we call it.
    Senator Sessions. He always expressed concern--and I 
believe it was persuasive to me--that there was a danger in 
overcommitting American troops in what could be perceived as an 
occupation mode and not a supportive role, a temporary action. 
Share your thoughts about that concern? Would you articulate 
the tension between using military force and being an 
occupation force?
    General Lute. Senator, I think this goes right to the heart 
of the question of are we in the lead or are the Iraqis in the 
lead and are we supporting. I think at this point in this 
fight, increasingly we need to take every opportunity to put 
the Iraqis in the lead across the security, governance, and 
economic dimensions of this struggle. If we fail to do that and 
we retain the lead, I think there is a real risk that we'll be 
seen as occupiers.
    Senator Sessions. Now, there are some superb generals, 
colonels, and all out there trying to do their job every day. 
Do you think there's a danger that sometimes they may want to 
do too much, just out of patriotism and commitment to mission?
    General Lute. Senator, I think we recruit people and 
advance people in our Armed Forces who see no problem too great 
for their efforts and their dedication. That's simply the sort 
of people we put on the battlefield. But we have to temper that 
with a realization in this instance in particular that the 
local Iraqi solution will be the enduring one.
    Senator Sessions. Well said.
    Chairman Levin. Thank you.
    We have a few minutes before we're going to have to run. 
We'll have maybe a 2-minute round now to get a couple of us in 
before we have to run and vote. We will come back after two 
votes.
    General, do you agree that the main purpose of the surge 
was to give space to the Iraqi politicians to reach a political 
settlement involving reconciliation?
    General Lute. Yes, Senator.
    Chairman Levin. Therefore the measure of success of the 
surge will be whether or not it has led to significant progress 
towards political reconciliation?
    General Lute. That's right, Senator.
    Chairman Levin. It seems to me your answer raises a number 
of questions that you doubt the capacity of the Iraqi 
Government to reach a political reconciliation. I mean, if the 
purpose of a surge is to give them breathing space to do 
something they're incapable of doing, then it seems to me we 
have a real double problem with this surge. We're losing a lot 
of lives there during a surge whose purpose is to give 
breathing space to an Iraqi Government which you have grave 
doubts about the capacity to reach the very purpose of the 
surge, which is to give them breathing space to reach the 
political reconciliation.
    By the way, I think they lack will, not capacity, so I 
don't agree with you particularly on that. But taking your 
argument, how do you then justify a surge whose purpose is to 
give breathing space to a government that by your testimony you 
doubt has the capacity to make the political reconciliation 
compromises?
    General Lute. Senator, I am concerned about the capacity of 
this government, but I haven't passed final judgment on them. I 
think it is possible that they can muster the will and enough 
capacity to show progress and maybe by passing measures of 
reconciliation, break this cycle of violence and this sort of 
winner-take-all attitude that we sometimes see. So I am 
concerned, but I'm not yet convinced that they're incapable or 
unwilling.
    Chairman Levin. I think there's an inconsistency there. 
I'll just leave it at that.
    Do you believe, General, that the debate that we've had in 
Congress on amendments that call for troop reductions starting 
at a certain point, that those debates undermine the troops?
    General Lute. Senator, I know of no evidence of that. I 
believe the sort of people that are serving in the American 
Armed Forces today understand the democratic process, and in 
fact that's what we've sworn to protect and defend. When they 
see it play out here in Washington they understand that, and 
they're driving on with the mission they were given.
    Chairman Levin. So is it your answer then that you do not 
believe that----
    General Lute. I don't believe that it undercuts their 
morale.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. Mr. Chairman, I think the colloquy between 
Senator Reed and the General--I'd hope in the few moments while 
we're voting maybe we can get some clarifications as to 
actually what was said, because I don't want reporting out of 
this hearing--it just concerns me. I've known Steven Hadley. 
I've worked with him for 25 years and I have the highest regard 
for him. I don't share my colleague's personal observation.
    But the more important thing is, in any way has Mr. 
Hadley's role with respect to Iraq and Afghanistan been 
diminished by your now, presumably subject to confirmation, 
joining as an advisor to the President on those two specific 
AORs?
    General Lute. Senator, I see my role as Steve Hadley's 
teammate on Iraq and Afghanistan. Because Iraq and Afghanistan 
must be viewed, as we've talked about here this morning, in a 
regional context, where Steve Hadley does have primacy for 
execution and policy development, it'd be very difficult to 
draw a line between us or separate us on matters inside Iraq 
and Afghanistan. But it is clear that, if confirmed, this 
appointment will hold primary execution and policy development 
for those two countries.
    Senator Warner. But in no way is Mr. Hadley's role 
diminished?
    General Lute. Sir, he's not cut out of the process in any 
way, and in fact there are two key lines, if you go to the 
conventional wire and block diagram, for my position if 
confirmed. One would be a direct line to the President; a 
second would be a dotted, parallel line to Mr. Hadley for 
coordination.
    Senator Warner. Correct. I think that puts in perspective 
my understanding.
    Now, there have been announced two resignations from Mr. 
Hadley's staff, very competent individuals. One was Meghan 
O'Sullivan and another J.D. Crouch. Will you be picking up some 
of their responsibilities?
    General Lute. Almost none of J.D. Crouch's 
responsibilities, but to a large extent Ms. O'Sullivan's, in 
addition to others.
    Senator Warner. I see. So you'll be picking that up.
    But again, Hadley's operating and going to continue to 
operate, I think as a very strong, professional advisor to the 
President. In the history of national security advisors, he's 
done a fine job. But his role has not been changed by virtue of 
your addition, subject to confirmation?
    General Lute. Senator, my view is that, if confirmed, Steve 
Hadley will have a new teammate.
    Senator Warner. Fine. But his role will not be diminished?
    General Lute. That's not how I read it, correct.
    Senator Warner. It'll be augmented.
    General Lute. That's correct.
    Senator Warner. I thank the witness.
    Chairman Levin. We have asked for your testimony to be 
transcribed in response to Senator Reed's questions, in 
response to my questions on this subject.
    Senator Warner. And mine.
    Chairman Levin. Senator Warner's as well. I think it will 
speak for itself and we can get back into it.
    Senator Warner. Give the witness a chance in the course of 
this hearing, before there's reporting made on this hearing, to 
review that and confirm or advise the committee about how he 
stated it.
    Chairman Levin. Very good.
    Senator Sessions, if you would recess as soon as you're 
done, we'd appreciate it.
    Senator Sessions. I would be pleased.
    With regard to schools, oil production, electricity, the 
legal system--will you be digging into those in more depth than 
Mr. Hadley could ever have time to do? I mean, won't that be 
your responsibility, to figure out how these things are coming 
along, get right in there with the authority of the President 
behind you to see what the problems are and make advice on how 
to fix it?
    General Lute. That's the essence of the design of this 
position, yes, sir.
    Senator Sessions [presiding]. I don't think the National 
Security Advisor can have the time to do all those things with 
every other responsibility. I think it's going to enhance his 
ability to be effective. Agencies I think have begun to drift 
sometimes in these kind of situations, and by being a 
representative of the President you have the authority to shake 
things up, get things moving in a way that would be helpful to 
us, and actually could make things safer for those superb 
soldiers we have on the ground.
    We will stand in recess.
    General Lute. Thank you, sir.
    [Whereupon, at 11:22 a.m., the committee recessed, then 
reconvened at 11:58 a.m.]
    Chairman Levin [presiding]. General, I know you understand 
how these things go, so I won't apologize too much. But 
nonetheless, thank you for your patience. We're now back in 
session.
    I think that Senator Lieberman has not had his second 
round. Senator Warner and I have. Senator Lieberman.
    Senator Lieberman. Thank you.
    Chairman Levin. A very short round, I want to alert you. 
It's like 2 or 3 minutes.
    Senator Lieberman. It's not a long count. It's a short 
round, okay.
    Very briefly, I understand that this is an unusual position 
you've been appointed to, but I must say, contrary to my friend 
Senator Reed, I don't think your appointment suggests that 
Steve Hadley should go. I think this is a recognition and a 
kind of exercise of sound management that the advice to the 
President on the wars in Iraq and Afghanistan are so 
substantial that one person, the National Security Advisor, 
can't do it all. Either he's going to spend all his time or too 
much of it on Iraq and Afghanistan and ignore the rest of the 
world in his advice to the President, or he's going to do the 
opposite. Either one is not a good idea.
    I note that your title is that you've been nominated to be 
Deputy National Security Advisor for Iraq and Afghanistan and 
Assistant to the President. Why Assistant to the President? 
Because history tells us that nations do better when the 
commander in chief is directly involved day to day in the 
management of a war, and you're going to be his conduit to do 
that.
    I just wonder if I have it right. I guess the other point 
is internal--this is real inside baseball--that you will chair 
the so-called deputies committee when it comes to Iraq, but 
obviously Mr. Hadley will continue to be involved in the 
National Security Council overall, the principals.
    General Lute. Right. Senator, let me be very clear about 
this, because I don't want to leave any doubt based on the 
earlier session.
    Senator Lieberman. Yes.
    General Lute. Steve Hadley remains in all of his capacities 
the National Security Advisor. He's responsible for national 
security affairs across the global spectrum. His role is not 
diminished by this appointment or this designed position. If 
confirmed, I'll join him as a teammate, and I'll augment him by 
providing him and the President 24-7 dedicated coverage of 
policy execution and policy development for Iraq and 
Afghanistan.
    If I was confusing earlier, I'd like to set that straight. 
To your specific point, yes, I will be, if confirmed, chairing 
the deputies-level sessions inside the National Security 
Council process, and Steve and I will be seated together at the 
principals level.
    Senator Lieberman. Okay. To me that clarifies it, and I 
think your appointment, the creation of the position, 
particularly putting you into it, is going to move us toward 
better management both of the Iraq and Afghanistan wars and of 
the rest of our foreign policy. It's going to require a real 
sense of mutual respect and, as you said, a sort of team spirit 
between you and Mr. Hadley. That's where the problems can 
occur.
    But I know both of you and I think I know your skills, your 
personalities, and your commitment to the higher national 
purpose, and I don't have any doubt that the two of you will 
make it work.
    General Lute. Thank you, Senator.
    Senator Lieberman. Thank you for clarifying that.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    We'll start our third round here. We'll just go maybe 3 
minutes each because another vote has started. But I'm hoping 
that we'll be able to finish up before we all leave this time.
    General, there's been a report in yesterday's edition of 
the New York Times that the Iraqi parliament voted to require 
the government of Prime Minister Maliki to bring the matter of 
how long American troops can stay in Iraq before lawmakers--to 
bring that matter before the lawmakers, of how long American 
troops can stay in Iraq, in order for any additional extensions 
to occur.
    Are you familiar with that?
    General Lute. I read the same report, Senator.
    Chairman Levin. How do you interpret that vote?
    General Lute. Senator, I interpret that as an indication 
that their council of representatives, the Iraqi parliament, 
does want to assume control completely of Iraqi affairs. I 
think this can be viewed as an expression of desired full 
sovereignty on behalf of the Iraqi representatives. I think 
that as we approach the fall and look at the current 
authorizing resolution, which is a U.N. Security Council 
resolution, and whether or not it will be extended or adapted 
in some way, that the expression of the parliamentarians, the 
elected representatives of Iraq, will be heard.
    Chairman Levin. Secretary Gates has said that the votes 
here in Congress that set a timetable, while he doesn't agree 
with them, nonetheless perform a useful function in that they 
put pressure on the Iraqi leaders to recognize that there is a 
diminished congressional support for the President's policies 
and that the American people are no longer, since at least 
November, supporting the policies as well.
    Do you agree with Secretary Gates that there's a useful 
purpose to these votes, even though he disagrees with the 
substance of the amendment; that when Congress does pass 
amendments saying we'll begin to reduce troops as of a certain 
time that does have a useful aspect to it?
    General Lute. I think that the policy debate back here, 
first of all, is watched very carefully by the Iraqi officials. 
I agree with Secretary Gates that it helps them draw the right 
conclusion, which is that our commitment to Iraq is not open-
ended.
    Chairman Levin. Do you know if the Iraqi parliament has 
finally decided whether it's going to take a 2-month summer 
recess?
    General Lute. Senator, we watch this pretty carefully in my 
current position on the Joint Staff. We have reports, but I 
don't yet have a confirmation that they've changed their 
schedule.
    Chairman Levin. On the question of your relationship to the 
President and Mr. Hadley, the daily brief that you made 
reference to--did you say a daily brief on Iraq?
    General Lute. I said I expect to engage with the President 
daily.
    Chairman Levin. Is that something that you and Mr. Hadley 
will do jointly or is that something you're going to be doing?
    General Lute. I think I will, and my staff, will craft it 
and then we'll coordinate it closely with Steve and his----
    Chairman Levin. Who will actually be briefing the 
President?
    General Lute. Sir, as I have----
    Chairman Levin. As far as you know.
    General Lute. As far as I know, I will, and I fully 
anticipate that Steve Hadley will be right there alongside of 
me.
    Chairman Levin. Will be there?
    General Lute. Alongside.
    Chairman Levin. Physically?
    General Lute. I believe so, yes, sir.
    Chairman Levin. Thank you.
    Senator Warner. [Pause.]
    Senator Warner. Excuse me, Mr. Chairman. We have a rough 
handwritten transcript of what the earlier statement was. I 
would simply say that I would hope that the witness could have 
the opportunity to review his earlier statement in the 
transcript in the context of his reply to our colleague from 
Rhode Island's question, and if there's any further 
clarification that you be given the leeway to so state that in 
the record.
    General Lute. Thank you, Senator.
    Senator Warner. Fine.
    Chairman Levin. On that matter, I would suggest that we get 
the transcripts of all of the questions of any of us on the 
subject that you're referring to, to the General, and that he 
add whatever he wishes for the record.
    Senator Warner. That's it precisely.
    Chairman Levin. So we want to thank our reporter as well, 
because he's done yeoman service in trying to transcribe this 
during our recess.
    [The information referred to follows:]

    General Lute. I'd like to clarify that Steve Hadley retains all his 
responsibilities as National Security Advisor. So he's responsible for 
national security affairs across the spectrum of global issues. His 
role is in no way diminished by this appointment or this designed 
position. If confirmed, I'll join him as a teammate and I'll augment 
him by providing him and the President 24-7 dedicated coverage of 
policy execution and policy development for Iraq and Afghanistan. I 
have the highest regard for Steve Hadley and, if confirmed, look 
forward to working with him.
    I'd like to clarify that the responsibilities for Iraq and 
Afghanistan are not exclusively mine. The new position does not exclude 
Steve Hadley and many others also from advising.

    Chairman Levin. Senator Warner.
    Senator Warner. Thank you. Now, Senator Lieberman brought 
up an important thing about how General Lute, subject to 
confirmation, would be conducting a certain segment of the 
meetings on Iraq in the procedure of the NSC. It's my 
understanding that was a function that Meghan O'Sullivan did. 
Am I correct in that?
    General Lute. Senator, not at the deputies or principals 
level.
    Senator Warner. Not at the deputies, but----
    General Lute. But below that, yes, sir.
    Senator Warner. That's the chairing that you will do, is 
that correct?
    General Lute. I'll actually chair at the deputies level and 
participate at the principals level.
    Senator Warner. So there's two levels of hearings or review 
processes that regularly go on within the NSC. What was it that 
Meghan O'Sullivan had?
    General Lute. Senator, that's just below the deputies 
level.
    Senator Warner. Correct. But didn't you say you would be 
picking up her responsibilities?
    General Lute. Some of her responsibilities.
    Senator Warner. Some of hers.
    General Lute. Then additional responsibilities, and among 
the additional are the roles on the deputies and principals 
committee.
    Senator Warner. Correct. But did she not conduct meetings 
of a certain level?
    General Lute. She did.
    Senator Warner. Will you be continuing conducting those 
meetings?
    General Lute. Senator, I suspect I won't be doing those 
myself, but rather one of my assistants will.
    Senator Warner. I think that we've done our very best then 
to try and get the record straight. I believe your response to 
our colleague from Connecticut's question clarified it for my 
purposes, that there is no diminution; as I stated in my 
earlier question, that Mr. Hadley will carry on as he has 
always done, and that you will be in a support role, and 
directly--of course, for your own initiative, you have free 
access to the President to, quite frankly, and I hope there are 
occasions where you will be at variance to the National 
Security Advisor in terms of some of his observations and 
opinions. I anticipate that. Wouldn't you?
    General Lute. That may well happen.
    Senator Warner. You would have no reluctance to so speak?
    General Lute. No, Senator, no reluctance.
    Senator Warner. Therein is what this hearing is all about, 
to hopefully assure this committee that you're going to be an 
independent individual, and that is why the President selected 
you, because you've manifested a certain measure of 
independence in your previous positions as it relates to Iraq 
and Afghanistan, and that you will continue to do so.
    General Lute. That's exactly right, Senator. I don't intend 
to change now.
    Senator Warner. Now we go to the subject of Afghanistan, 
which is of great concern to all of us. We tend to spend a 
great deal of time, understandably, on Iraq. But this is a 
situation that bears close attention. There are two difficult 
things. One, I must say I read through carefully all your 
answers to the advance policy questions, but I would hope that 
you could go back and look at your answers and refine with more 
specificity what you feel is the U.S. role as a part of the 
NATO organization, as a part of our independent operations with 
U.S. forces over there, as it relates to this insidious and 
tragic situation of the growing dependence on drug revenues 
indeed by the economy of Afghanistan and how that impairs, in 
my judgment, the ability of the Karzai Government to go 
forward.
    Maybe quickly, what is the U.S. role? At one time Great 
Britain, as roles were divided up, was given that 
responsibility. Has that changed now in any way?
    General Lute. The United Kingdom still retains the 
international lead, based on the Bonn Conference of several 
years ago, for counternarcotics in Afghanistan. We play a 
supporting role in two fundamental ways: first, as one of the 
26 member nations of NATO----
    Senator Warner. Correct.
    General Lute.--and then second of all, in a U.S.-only role, 
if you will, because we retain some U.S.-only missions in 
Afghanistan as well. In both of those capacities, as part of 
NATO and U.S.-alone, we provide military support on an in 
extremis and as-available basis to the U.K. and increasingly 
the Afghan counternarcotic effort.
    Senator Warner. But the direct responsibility rests with 
the Afghan government?
    General Lute. It does, that's correct.
    Senator Warner. We're in there in a supporting role. When 
called upon, we have the discretion to give that support or 
not.
    General Lute. That's correct.
    Senator Warner. Because I don't want to see the American 
GIs tasked as the principal persons that have to go in and 
clean up this situation.
    General Lute. That's right, Senator. This is fundamentally 
a law enforcement and governance role, not a military role.
    Senator Warner. That is correct.
    Next I'd like to ask a question just quickly on the 
national caveats, which are troublesome. There are some nations 
that are in that NATO force which have a caveat on the use of 
their forces, which caveat in many respects precludes them from 
participating in active combat. Now, what do you hope to bring 
about by way of a change in that situation?
    General Lute. Senator, you'll appreciate that the NATO 
command structure already and the political authorities in NATO 
already understand what you're saying with regard to caveats, 
which fundamentally restrict the flexibility of our commanders 
on the ground, because he can't go to everyone and ask them to 
do every task. He has to sort of keep a chart as to who agrees 
to do what.
    It's a major effort by General Bantz Craddock in his role, 
both his NATO role and his U.S. role, to reduce those 
conditions or those caveats, and I'll certainly do everything 
possible to support that effort.
    Senator Warner. Finally, in response to questions by my 
colleagues here--and I copied down what you said--the council 
of representatives are going to assume control of Iraqi 
affairs. I believe that's what you said. But I did not 
interpret that to say that they're going to preempt the prime 
minister. Or how do you take your response and tie it to the 
fact that the government consists of the council of 
representatives and the prime minister and his ministers?
    General Lute. Yes, Senator. What I meant by that earlier 
response was their constitutional role, which is defined in the 
constitution and has, of course, the parliament, if you will, 
working alongside the prime minister and other government 
officials.
    Senator Warner. Right. So it's to foster stronger reins of 
sovereignty within the framework of the constitution, which 
outlines their roles as legislators and that of the prime 
minister and his ministers.
    General Lute. That's exactly right.
    Senator Warner. Not in any way interpreted they're marching 
off----
    General Lute. This is in accordance with the constitution.
    Senator Warner. Understood.
    Chairman Levin. Thank you.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman. Just one 
question. I know time is going.
    This is in some sense a question, in some sense an appeal, 
and it goes back, General, to something we talked about when 
you came to my office. The American public's understanding of 
what we're trying to do in Iraq and how we're doing it is 
critically important to whether we succeed or fail there. I 
think you'd agree that ultimately the enemy, al Qaeda, Iran, 
can't defeat us in Iraq, but we can be defeated by an absence 
of public support or understanding for what we're doing.
    You are a very credible, straightforward communicator, an 
effective communicator. You're now going to be Deputy National 
Security Advisor for Iraq and Afghanistan. National Security 
Advisor Steve Hadley has regularly gone before the press, gone 
onto television, answering questions. I don't know whether the 
President has asked you to do this as part of the job 
definition, but I really appeal to you in the interest of your 
own sense of service to be willing to spend some of your time, 
not much because you have a big job to do, going out and 
speaking to people about what we're trying to do and telling 
them honestly how you think it's going. Will you do that?
    General Lute. Senator, I'm, with you, concerned about the 
full range of responsibilities and making sure I meet those 
responsibilities as essentially an inside player. But I also 
take your point that our ability to explain what we're doing 
and where we're going is absolutely critical to the overall 
success of this mission, and I take your point. Thank you.
    Senator Lieberman. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    I think you were asked before about an exit strategy and 
planning pursuant to an exit strategy. Have you seen such 
planning?
    General Lute. I have not been privy to planning that has 
any label such as that, sir.
    Chairman Levin. Do you know if it exists?
    General Lute. I do not know that it exists.
    Chairman Levin. Could you try to find out and let us know 
for the record whether that planning exists and what the state 
of it is and when did it begin?
    General Lute. I understand the question, Senator, and I 
will do so.
    Chairman Levin. Thank you.
    Senator Warner. Would the chairman's question be enlarged 
to say--you used ``exit strategy.'' There could well be some 
planning with regard to some variance to the strategy announced 
on January 10.
    Chairman Levin. However the General wants to answer. He 
understands the question and I think he----
    General Lute. I think I do take Senator Warner's point, 
that there's constant planning going on in terms of what might 
happen, sort of what-if drills, if you will. That planning is 
going on all the time. It could feature more troops in Iraq, 
fewer troops in Iraq, troops in Iraq doing something else.
    Chairman Levin. If you could just tell us what planning 
there is for fewer troops in Iraq or the removal of troops from 
Iraq and under what circumstances that would occur and how it 
would be implemented. Okay?
    General Lute. Yes, sir.
    Chairman Levin. If you could do that for the record.
    [The information referred to follows:]

    The focus of planning now is on how to achieve our objectives in 
Iraq. To my knowledge, no orders have been issued to begin planning for 
an ``exit strategy,'' although military contingency planning at 
multiple levels of command takes place continuously and routinely in an 
effort to have options prepared to respond to changing conditions on 
the ground.

    Chairman Levin. In your opinion, would it be advisable for 
the United States to maintain permanent military bases in Iraq?
    General Lute. Senator, it's U.S. policy that we don't seek 
this, and we also have no desire for control of resources. 
These are two things that have been discussed with the Iraqi 
Government. I believe the position there is very clear. We 
simply don't seek long-term bases.
    What we do seek is a more normalized nation-to-nation 
relationship with the Government of Iraq, with the state of 
Iraq.
    Chairman Levin. Anything further, Senator Warner?
    Senator Warner. No.
    Chairman Levin. The record's going to stay open for your 
answers, but also for questions of members of the committee. We 
will keep the record open for 2 days. I have a number of 
questions on Afghanistan which I didn't have time here to ask 
you, and those will be some of my questions.
    Again, we thank you very much for your presence, for your 
willingness to take a very difficult job under circumstances 
which are extraordinarily difficult, to put it mildly. From 
everything we know about you, it is part of your character that 
you would respond to this kind of a request from the President 
of the United States.
    We will now stand adjourned.
    [Whereupon, at 11:58 a.m., the committee adjourned.]

    [Prepared questions submitted to LTG Douglas E. Lute, USA, 
by Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses

                            RESPONSIBILITIES

    Question. What are the responsibilities of the position for which 
you have been nominated? What will be your responsibility for analyzing 
and evaluating requirements and policies and making recommendations to 
the President about:

        <bullet> increasing, sustaining, or reducing U.S. force levels 
        in theater; deployed force readiness, manning, equipment 
        availability/cross leveling/prioritization, modernization, and 
        supply;
        <bullet> operation and maintenance funding levels, 
        prioritization and cash flow necessary to support continued 
        operations in support of Operation Iraqi Freedom (OIF) and 
        Operation Enduring Freedom (OEF);
        <bullet> task distribution between and among Federal agencies 
        operating in support of OIF and OEF; and
        <bullet> command and control relationships between and among 
        Federal agencies in support of OIF and OEF.

    Answer. Position description:
Goal:
    Establish a full-time senior manager for implementation and 
execution of the President's strategies for Iraq and Afghanistan and to 
manage the interagency policy development process for Iraq and 
Afghanistan and to help develop our ongoing strategy for these two 
theaters in close coordination with the Assistant to the President for 
National Security Affairs.
Mission:
        <bullet> To support our civilian and military leaders in the 
        field, in turning the President's new strategies for Iraq and 
        Afghanistan into a prioritized set of defined implementation 
        and execution tasks with clearly assigned responsibility, 
        deadlines, performance metrics (as appropriate), and a system 
        of accountability to ensure progress toward accomplishing those 
        tasks.
        <bullet> To manage the process of implementation and execution 
        of those tasks among Washington departments and agencies 
        working through the appropriate cabinet secretaries and agency 
        heads to help ensure full and prompt Washington support for 
        accomplishing the prioritized tasks established for Iraq and 
        Afghanistan.
        <bullet> To manage the interagency policy development process 
        for Iraq and Afghanistan policy and to help develop our ongoing 
        strategy for these two theaters in close coordination with the 
        Assistant to the President for National Security Affairs.

Authority:
    Report directly to the President as the Assistant to the President/
Deputy National Security Advisor for Iraq and Afghanistan and 
coordinate with the Assistant to the President for National Security 
Affairs as the Deputy National Security Advisor for Iraq and 
Afghanistan. He is charged by the President to:

        <bullet> Request and receive from cabinet secretaries and 
        agency heads information, personnel, and additional resources/
        assistance needed to carry out successfully the President's 
        strategies for Iraq and Afghanistan.
        <bullet> Receive and obtain fulfillment of requests from 
        civilian and military leaders in the field for assistance and 
        support in accomplishing the prioritized tasks established for 
        Iraq and Afghanistan.
        <bullet> Provide ``quick look'' assessments on the issues 
        identified by the President, reporting back to the President, 
        and carrying out any guidance given by the President working 
        through the appropriate cabinet secretaries and agency heads.
        <bullet> Investigate implementation/execution issues and 
        problems on his/her own authority to identify and remedy the 
        problems identified working through appropriate cabinet 
        secretaries and agency heads.
        <bullet> Manage interagency policy development and helping to 
        develop our ongoing strategy for these two theaters in close 
        coordination with the Assistant to the President for National 
        Security Affairs.

    In summary, work at the direction of the President to execute 
policy and assist in the development of future policy within the 
established National Security Council (NSC) process for both Iraq and 
Afghanistan, in direct support of the U.S. officials in the field. In 
policy execution, emphasize setting priorities, focusing resources, 
following through, and adapting as conditions change.

                               AUTHORITY

    Question. What authority will you have to fulfill the 
responsibilities of the position to which you are being appointed? What 
will be the process for translating your analysis or evaluations of 
requirements, policies, and recommendations to the President into 
executable directives or orders for cabinet level officials and Federal 
agencies to carry out? What is your authority to direct Federal 
departments or agencies to provide personnel or resources in support of 
U.S. operations and activities in Iraq and Afghanistan? Will you be 
responsible for monitoring and ensuring compliance with those 
directives and orders within the Executive Branch, and, if so, by what 
process will you do so? Do you believe that the authority of this 
position will be commensurate to the responsibilities and the 
objectives it is being given?
    Answer. See position description above. The position is an advisor 
and coordinator, without directive authority beyond a small staff. In 
such a role, the ability to move policy forward has less to do with 
than other factors, such as: Presidential direction and support, 
acceptance by other policy principals, broad commitment to a common 
cause, cultivated interpersonal relationships, personal integrity, and 
meaningful results.

                             RELATIONSHIPS

    Question. Please describe your understanding of the relationship of 
the position to which you are being appointed to the following offices:
    The Chief of Staff to the President.
    Answer. As one of several Assistants to the President, this 
position requires close coordination with the Chief of Staff.
    Question. The National Security Advisor.
    Answer. This position calls for close coordination with the 
National Security Advisor to ensure policy development and execution 
for Iraq and Afghanistan are integrated effectively with regional 
policies. Further, as a Deputy National Security Advisor, this position 
is part of the NSC structure and can call on the resources of the NSC 
staff.
    Question. The Deputy National Security Advisor.
    Answer. This position calls for close coordination with the Deputy 
National Security Advisor to ensure policy development and execution 
for Iraq and Afghanistan are integrated effectively with regional 
policies.
    Question. The Secretary of Defense, the Secretary of State, the 
Chairman of the Joint Chiefs of Staff.
    Answer. This position coordinates both policy development and 
execution with these principals of the NSC.
    Question. The Vice Chairman of the Joint Chiefs of Staff (VCJCS).
    Answer. When the VCJCS stands in for the Chairman of the Joint 
Chiefs of Staff (CJCS) as a principal of the NSC, this position 
coordinates both policy development and execution with the VCJCS.
    Question. The Commander, U.S. Central Command; the Supreme Allied 
Commander Europe; the Commander, U.S. Special Operations Command; the 
supporting combatant commanders; the U.S. Ambassador to Iraq; and the 
U.S. Ambassador to Afghanistan.
    Answer. This position is designed to support U.S. military and 
diplomatic missions in Iraq and Afghanistan primarily by coordinating 
with the department secretaries and employing the existing chains of 
command and authority between Washington and the field.
    Question. The Service Secretaries and the Service Chiefs.
    Answer. This position is not intended to interact routinely with 
these officials. Any interaction would be through the Department of 
Defense.

                             QUALIFICATIONS

    Question. You will be entering this important position at a 
critical time for the conflicts in Iraq and Afghanistan. What 
background and experience do you have that you believe qualifies you 
for this position?
    Answer. Throughout my 32-year military career, I have served 
repeatedly in operational assignments requiring interagency 
coordination including three tours on the Joint Staff in Washington, 
two tours in the Middle East, and peacekeeping duties in the Balkans. I 
have studied complex international crises over the past 20 years 
including taking an advanced degree from Harvard University and serving 
on the faculty at West Point with teaching assignments in this area.
    I have recent operational experience in Iraq and Afghanistan, 
including 2 years (2004-2006) as the operations officer (J3) for U.S. 
Central Command and the last year as Director of Operations (J3) on the 
Joint Staff.
    I am professionally and personally committed to our troops and 
civilians in the field.

                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges confronting 
the Assistant to the President/Deputy National Security Advisor for 
Iraq and Afghanistan? What plans do you have for addressing these 
challenges?
    Answer. The key challenge is to harness and integrate the resources 
of the Government to meet the needs of our leaders in the field, in 
both policy execution and policy development.

                         MOST SERIOUS PROBLEMS

    Question. What do you consider to be the most serious problems in 
the interagency process that the Assistant to the President/Deputy 
National Security Advisor for Iraq and Afghanistan is intended to 
correct? What management actions and time lines would you establish to 
address these problems?
    Answer. The purpose of this position is to build on the collective 
desire to promote our national security interests in the region being 
mindful of the challenges facing the men and women on the ground. In 
practical terms, this will mean taking a sober view of where we are now 
and focusing fully on the needs of Iraq and Afghanistan, even though 
there is a full range of competing global commitments. This position 
brings senior, full-time, dedicated focus on these two wars within the 
NSC staff.

                           APPROPRIATE GRADE

    Question. Do you believe that serving in the position to which you 
are appointed as a lieutenant general makes it more difficult to 
perform the functions of the office when dealing with cabinet officials 
and higher ranking officers? How do you intend to fulfill your 
responsibilities when dealing with officials of higher positions?
    Answer. See earlier answer.

                                  IRAQ

    Question. What is your assessment of the current situation facing 
the United States in Iraq? From your perspective, what are the top 
lessons learned from our experience in Iraq?
    Answer. One year into the Maliki Government we face persistent 
violence, insufficient progress in governance and the economy, and 
unhelpful influences from Syria and Iran. I believe it is too early to 
draw up a list of strategic lessons from this ongoing experience; time 
will judge. This position is designed to focus on where we are now and 
how to forward to secure U.S. interests.
    Question. What do you consider to be the most significant mistakes 
the United States has made to date in Iraq? Which of these do you 
believe are still having an impact? What do you believe could be done 
now to mitigate such impact? What do you believe are the most important 
steps that the United States needs to take in Iraq?
    Answer. I believe we must put the conflict in Iraq in a broad, 
regional context centered on long-term U.S. interests, including 
defeating al Qaeda, supporting our key regional partners, and 
containing regional threats.
    Question. What role, if any, did you play in the development of the 
new Iraq strategy announced by the President earlier this year? Press 
reports indicate that you opposed the ``surge'' strategy during policy 
deliberations prior to the President's decision. Is that true, and if 
so, why? Have events to date validated or invalidated your concerns, if 
any?
    Answer. I participated in the policy review prior to the 
President's decision to adjust course in January 2007. During the 
review I registered concerns that a military ``surge'' would likely 
have only temporary and localized effects unless it were accompanied by 
counterpart ``surges'' by the Iraqi Government and the other, 
nonmilitary agencies of the U.S. Government. I also noted that our 
enemies in Iraq have, in effect, ``a vote'' and should be expected to 
take specific steps to counter from our efforts. The new policy took 
such concerns into account. It is too soon to tell the outcome.
    Question. Do you believe that there is a purely military solution 
in Iraq, or must the solution be primarily a political one? Do you 
believe that political compromise among Iraqi political leaders is a 
necessary condition for a political solution? Do you believe that 
quelling the current level of violence in Baghdad is a necessary 
condition for a political solution?
    Answer. There is no purely military solution in Iraq, nor is there 
a purely American solution. Ultimately the outcome depends on a 
political solution to rejecting violence and sharing power among all 
the parties within Iraq. Improved security is a necessary but not 
sufficient condition for this to happen. Suppressing violence in 
Baghdad can provide time and space for a political solution.
    Question. What do you believe will induce Iraqi political leaders 
to make the political compromises necessary for a political solution? 
What leverage does the United States have in this regard?
    What do you believe are the prospects for Iraqi political leaders 
to make those compromises and, if made, what effect do you believe that 
will have toward ending the sectarian violence and defeating the 
insurgency?
    What is the present status of the Iraqi Government's efforts to 
meet the political benchmarks, including the Constitutional Review 
Committee's recommendations; legislation on de-Baathification; 
legislation to ensure the equitable distribution of hydrocarbon 
resources; legislation to ensure that the energy resources of Iraq 
benefit Iraqi citizens in an equitable manner; legislation on 
procedures to form semi-autonomous regions, legislation establishing an 
Independent High Electoral Commission, provincial elections law, 
provincial council authorities, and a date for provincial elections; 
legislation addressing amnesty; and legislation establishing a strong 
militia disarmament program?
    What is the present status of the Iraqi Government's efforts to 
meet the political-military benchmarks, including ensuring that Iraq's 
political authorities are not undermining or making false accusations 
against members of the Iraqi security forces; establishing supporting 
political, media, economic, and services committees in support of the 
Baghdad security plan; and allocating and spending $10 billion in Iraqi 
revenues for reconstruction projects, including delivery of essential 
services, on an equitable basis?
    Will you be doing an ongoing assessment of the level of political 
progress made by Iraqi leaders? Do you believe that the above listed 
political and political-military benchmarks are appropriate for that 
purpose?
    What is the present status of the Iraqi Government's efforts to 
meet the military benchmarks, including providing three trained and 
ready Iraqi brigades to support Baghdad operations; providing Iraqi 
commanders with all authorities to execute the Baghdad security plan 
and to make tactical and operational decisions without political 
intervention, to include the authority to pursue all extremists, 
including Sunni insurgents and Shiite militias; ensuring that the Iraqi 
security forces are providing even handed enforcement of the law; 
reducing the level of sectarian violence in Iraq and eliminating 
militia control of local security; establishing all of the planned 
joint security stations in neighborhoods across Baghdad; and increasing 
the number of Iraqi security forces units capable of operating 
independently?
    Will you be doing an ongoing assessment of the level of the 
progress made by Iraqi leaders on the military benchmarks? Do you 
believe that the above listed military benchmarks are appropriate for 
that purpose?
    Answer. I believe the Iraqi Government intends to meet its 
commitments. Progress towards publicized benchmarks in the past 5 
months, however, has been uneven. On the security front the Iraqis have 
made substantial progress on their commitments, while political and 
economic steps have lagged behind. This position is designed to keep us 
all focused on the same benchmarks, integrate the political-economic-
military dimensions of the policy, and plan far enough in advance to 
account for various potential outcomes. Policy execution and policy 
development, of course, will rely heavily on inputs and assessments 
from the field.
    Question. With regard to the recent ``surge strategy,'' what role 
will you have in proposing or recommending changes to the strategy? 
What role will you have in deciding or recommending when U.S. troops 
can begin to draw down/redeploy? What do you see as a reasonable 
estimate of the time it will take to demonstrate success in securing 
Baghdad? How would you craft an ``exit strategy'' for U.S. forces in 
Iraq? What are the necessary pre-conditions; how would you phase the 
redeployment; and what residual forces would be needed for what period 
of time, and for what purposes over the long term? What is the state of 
planning for such an ``exit strategy?'' If none has begun, will you 
order that such planning immediately begin?
    Answer. This position includes advising the President during the 
development of policy in Iraq as well as Afghanistan. This process will 
involve the principals of the NSC and will be informed by assessments 
from the field.
    Question. Will you be doing an ongoing assessment of the capability 
of Iraqi security forces to take on more of the security 
responsibilities? What considerations will be factored into a decision 
regarding whether (and if so, what kind and how much) U.S. military 
equipment currently in Iraq should be left behind for use by the Iraqi 
Army?
    Answer. Given the central role of development of the ISF in our 
strategy, I expect to monitor closely progress in its ability to assume 
increased responsibilities for the security of Iraq. This progress will 
rely heavily on assessments from MNF-I and its subordinate, MNSTC-I, as 
well as from other outside experts such as the independent commission 
called for in recent legislation.
    Question. In the National Defense Authorization and Appropriation 
Acts for Fiscal Year 2007, Congress prohibited the use of funds to seek 
permanent bases in Iraq or to control the oil resources of Iraq. Do you 
agree that it is not and should not be U.S. policy to seek permanent 
basing of U.S. forces in Iraq or to exercise control over Iraq's oil 
resources? If you agree, what are your views on the construction of any 
additional facilities inside Iraq for use by our military forces?
    Answer. Is it not U.S. policy to seek permanent military bases in 
Iraq or to control Iraq's oil resources, which belong to the Iraqi 
people. The United States may, however, discuss a long-term strategic 
relationship with the Iraqi Government, as it does with many 
governments in the region and around the world.

                              AFGHANISTAN

    Question. What is your assessment of the current situation in 
Afghanistan?
    Answer. Overall progress is steady, but slow, and in parts, uneven. 
The Government of Afghanistan has limited capacity to influence events 
outside Kabul. The security situation is stable in some parts of the 
country, despite increased Taliban activity elsewhere, including the 
use of suicide bombings. North Atlantic Treaty Organization (NATO) 
forces have set back the Taliban efforts to gain momentum in the south 
this year by preemptive offensive operations and the killing of the top 
Taliban commander, Mullah Dudallah Lang. Yet, the Taliban enjoy 
relative safe haven in the border regions of Pakistan.
    Question. What is the status of efforts to develop and field an 
effective Afghan National Army (ANA) and Afghan National Police (ANP) 
force? What is your assessment of the readiness of these forces to 
conduct independent operations?
    Answer. Progress with the ANA is steady with a number of ANA 
battalions fighting effectively alongside NATO and U.S. forces; 
however, they are not yet ready to operate independently. The ANP lag 
behind the ANA in all areas.
    Question. What is your assessment of the progress of 
counterterrorism operations in Afghanistan?
    Answer. Our counterterrorism efforts in Afghanistan are effective. 
Yet, we know that this is only one dimension of this complex situation. 
An over-reliance on one measure--for example, precise counterterrorist 
strikes--will not solve the problem. We must bring together the 
multiple strands of effective policy to have a sustainable, enduring 
impact.
    Question. Are NATO members providing a sufficient level of troops 
and equipment for the International Security Assistance Force (ISAF) to 
carry out its security mission throughout Afghanistan? What can be done 
to address any shortfalls in troops or equipment needed to carry out 
NATO's Afghanistan mission and to eliminate any national restrictions 
on the use of troops contributed to this mission?
    Answer. The Supreme Allied Commander, Europe (SACEUR) has 
identified shortcomings in NATO forces and national restrictions that 
inhibit the flexibility of NATO commanders to employ forces across 
Afghanistan. These issues are being addressed as priorities within NATO 
channels. While these shortcomings need to be eliminated, they do not 
jeopardize the mission.
    Question. Do you believe there is a military solution to the 
situation in Afghanistan, or does success in Afghanistan depend on a 
political solution? In your view, what additional military or other 
assistance is required to ensure the transition of Afghanistan to a 
stable, democratic, and economically viable nation? What steps do you 
believe coalition forces and the international community need to take 
to improve the lives of the Afghani people in the near-term?
    Answer. As in all counterinsurgencies, the solution in Afghanistan 
will be political, not military. Most important at this stage is to 
bring increased coherence to the multiple dimensions of the mission--
governance, economic, and security--by better integrating the NATO 
mission, the U.S. missions, and the efforts of the international 
community.
    Question. Military intelligence officials have stated that Taliban 
and al Qaeda attacks across the Afghan-Pakistan border have increased 
two-fold, and in certain areas threefold, since last September when the 
Pakistan Government signed an agreement with tribal elders in the 
Waziristan region ceding control over some border areas in western 
Pakistan. What more can be done to prevent cross border incursions by 
the Taliban and al Qaeda from Pakistan into Afghanistan? In your view, 
should the Pakistan Government be doing more to prevent these cross-
border incursions? What role do you believe U.S. forces should play in 
preventing cross-border incursions?
    Answer. Pakistan is one of our strongest allies in the war on 
terror, but it must do more to control the regions along the border 
with Afghanistan where both the Taliban and al Qaeda have relative 
sanctuary. This should be a priority policy issue for this new 
position.
    Question. Afghanistan is in the Central Command's area of 
responsibility. EUCOM oversees the NATO ISAF force in Afghanistan. In 
your view, does this ``seam'' present any problems for the coordination 
and effectiveness of the ISAF and OEF missions in Afghanistan?
    Answer. The division of responsibilities between CENTCOM and NATO 
are clear. Coordination measures are in place and working.
    Question. News reports indicate that there is growing Afghan 
resentment over civilian deaths during the past few months resulting 
from U.S. airstrikes or counter-terrorism operations. It has also been 
reported that these civilian deaths have become a Taliban propaganda 
tool and generated tensions between U.S. commanders and NATO commanders 
who do not want to be blamed for deaths resulting from U.S. operations. 
Are you concerned that these reports of civilian deaths may be 
undermining efforts to win the support of the Afghan people for the 
mission in Afghanistan? What steps, if any, do you believe should be 
taken to address this issue?
    Answer. This is a serious issue that is central to the 
counterinsurgency campaign in Afghanistan which intends to protect the 
people of Afghanistan. The NATO and US commands in the field take every 
measure to minimize the potential for civilian casualties; however, 
these measures cannot eliminate the risks completely. Also, the enemy 
employs deliberate tactics such as seeking refuge among civilians that 
complicate our efforts.

                          COUNTERDRUG STRATEGY

    Question. In November 2006 the U.N. and World Bank released a 
report on the drug industry in Afghanistan. In February, the Center for 
Strategic and International Studies released a report on Afghanistan, 
which included recommendations regarding the counterdrug policy. Have 
you read these reports? What is your opinion of their conclusions and 
recommendations as they relate to the effectiveness of international 
efforts to help Afghanistan combat illegal drug production and 
trafficking? Do you believe that eradication is effective? Should 
international military forces have an explicit counterdrug mission? If 
so, should its focus be on interdiction, capturing drug lords and 
destroying drug facilities? If not, what is the appropriate role for 
the military?
    Answer. The counterdrug effort is an integral part of our strategy 
in Afghanistan, not only because the narcotics trade helps to finance 
the insurgency but because it undermines progress in nearly every 
dimension of our governance-economic-security strategy. I have reviewed 
the reports mentioned here and agree that a long-term, comprehensive 
approach is required. If confirmed, I will consider the counterdrug 
aspect of the campaign in Afghanistan as one element leading to overall 
success and seek to improve its integration with the other pillars of 
the strategy.
    Question. If the U.S. military were to take on the mission of 
capturing drug lords and dismantling drug labs in Afghanistan, what 
would be the impact on the drug trade in Afghanistan? What would be the 
impact on the coalition counterinsurgency effort? What can DOD and the 
military do--via the Provincial Reconstruction Teams or other means--to 
support the counterdrug efforts of other agencies in those areas? What 
is your view regarding the desirability and feasibility of licensing 
poppy cultivation to produce legal opiates, similar to programs in 
Turkey and India?
    Answer. The tactics involved in countering the narcotics trade--
eradication, targeting the drug lords, alternative crops, employing the 
PRTs, licensing cultivation, etc.--must derive from the strategy that 
takes into account all dimensions of the campaign. Our challenge is to 
integrate more effectively these dimensions given the international 
division of responsibilities within Afghanistan. There is much work to 
be done here, mainly by civilian agencies rather than the military.

                    PROVINCIAL RECONSTRUCTION TEAMS

    Question. In your view, what is the appropriate source of funding 
for the activities of the Provincial Reconstruction Teams (PRTs) in 
Iraq and Afghanistan? Which department or agency in the Executive 
Branch should administer the funding and oversee the activities of the 
PRTs? Are current staffing levels for the PRTs in Iraq and Afghanistan 
sufficient? What will be your responsibility with regard to ensuring 
that U.S. departments or agencies are providing the appropriate 
military and civilian personnel to fully staff PRTs?
    Answer. As PRTs are a cornerstone of interagency integration at the 
tactical level in Iraq and Afghanistan, their priorities, manning, 
funding and effectiveness will be a matter of concern to this new 
position. They represent a key means of extending support for 
governance and economic progress to the provinces and deserve priority 
attention.
    Question. In your estimation, how should determinations be made for 
PRTs in Iraq and Afghanistan regarding what types of projects should 
receive the highest priority for development and reconstruction 
activities? Should PRTs give priority to small-scale efforts to repair 
and develop infrastructure which bolster short-term employment?
    Answer. Project priorities should be set in the field to ensure 
close integration with the other elements of the campaign plan and 
account for local conditions that can vary widely from one province or 
district to another.

                                PAKISTAN

    Question. What is your assessment of the current status of U.S.-
Pakistan military cooperation? What is your assessment of the level of 
cooperation we have received from Pakistan in the war on terrorism?
    Answer. Pakistan is one of our strongest allies in the war on 
terror, but it must do more to control the regions along the border 
with Afghanistan where both the Taliban and al Qaeda have relative 
sanctuary. This should be a priority policy issue for this new 
position.

                                  IRAN

    Question. What options do you believe are available to the United 
States to counter Iran's growing influence in the region? Do you 
believe that a protracted deployment of U.S. troops in Iraq, if the 
situation on the ground in Iraq does not improve, could strengthen 
Iran's influence in the region? Do you believe it is important to 
continue to engage Iran in discussions regarding improving the security 
situation in Iraq and to seek Iran's cooperation with respect to the 
situation in Iraq?
    Answer. Iran is one of the most important regional actors with 
regard to Iraq and Afghanistan and therefore must be taken into account 
as we execute current U.S. policy and develop future policy. This new 
position will require close coordination with other elements of the NSC 
and across the Departments to ensure our policies take a regional 
perspective that includes Iran.

                             IRAQI REFUGEES

    Question. The United Nations estimates that approximately 2.3 
million Iraqis have fled the violence in their country; 1.8 million 
have fled to surrounding countries, while some 500,000 have vacated 
their homes for safer areas within Iraq. What is your assessment of the 
refugee crisis in Iraq? Beyond working to improve the security 
environment in Iraq, do you believe that the U.S. military and/or 
civilian agencies should play a role in addressing this crisis? Should 
the U.S. be doing more to track the movement of Iraqis who worked on 
weapons of mass destruction programs and to help them find legitimate 
scientific employment in Iraq or elsewhere?
    Answer. Refugees are a major concern because of the human suffering 
involved, the potential for destabilizing neighbor states, and the 
drain of talent from Iraq. Primary responsibility for refugees lays 
with international organizations to which the U.S. provides support.

                      DETAINEE TREATMENT STANDARDS

    Question. Do you agree with the policy set forth in the July 7, 
2006 memorandum issued by Deputy Secretary of Defense England stating 
that all relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. Do you believe it is consistent with effective 
counterinsurgency operations for U.S. forces to comply fully with the 
requirements of Common Article 3 of the Geneva Conventions?
    Answer. Yes.
    Question. How will you ensure that U.S. forces in Iraq and 
Afghanistan comply with the standards in the Army Field Manual, the DOD 
Directive, and applicable requirements of U.S. and international law 
regarding detention and interrogation operations?
    Answer. Compliance by U.S. forces with appropriate laws and 
directives is the responsibility of the U.S. military chain of command. 
If confirmed, I would raise any issues of concern at the highest levels 
for appropriate action.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information. Do you agree, if 
confirmed for this position, to appear before this committee and other 
appropriate committees of Congress?
    Answer. During my service as the J-3 to the JCS I have always 
honored my obligations to this committee to offer testimony when 
requested. With this new assignment, if confirmed, I am advised that as 
an Assistant to the President, principles designed to ensure that the 
President is provided with candid advice and to protect the autonomy of 
the Office would apply to me as they do to preclude the testimonial 
appearances of other senior advisors to the President, especially as 
they concern matters of national security. I understand that these 
principles have applied to all other active duty military officers who 
have served as senior advisors to the President, including those 
serving as National Security Advisor and Deputy National Security 
Advisor, in prior administrations.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes. If, consistent with the limitations indicated in 
response to the question above, I were to testify before any duly 
constituted committee of Congress, any response I provided to a 
question, including a question seeking my personal views, would be 
truthful.
    Question. Do you agree, if confirmed for this position, to appear 
before this committee, or designated members of this committee, and 
provide information, subject to appropriate and necessary security 
protection, with respect to your responsibilities as Assistant to the 
President and Deputy National Security Advisor for Iraq and 
Afghanistan? Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Please refer to the answer above addressing the principles 
generally applicable to senior advisors to the President.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Please refer to the answer above addressing the principles 
generally applicable to senior advisors to the President.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

                    COMMUNITY ACTION PROGRAM IN IRAQ

    1. Senator Levin. LTG Lute, I have been contacted by a company--CHF 
International--that has done extensive work on community infrastructure 
projects funded by the U.S. Agency for International Development in 
Iraq through a program known as the Community Action Program. These 
projects are identified and overseen by the Iraqis themselves, 
contributing to Iraqi employment and making the projects themselves 
more sustainable. CHF International believes that a dramatic expansion 
of this approach would yield significant dividends for stability in 
Iraq. If confirmed, will you review the Community Action Program and 
determine the feasibility of the expanded approach recommended by CHF 
International?
    General Lute. Yes.

                 COORDINATION OF EFFORT IN AFGHANISTAN

    2. Senator Levin. LTG Lute, in your answers to pre-hearing 
questions, you stated that the most important step that needs to be 
taken in Afghanistan at this time is to bring ``coherence'' to the 
various aspects of the mission--governance, economic development, 
security--by improving integration of the missions of the United 
States, the North Atlantic Treaty Organization (NATO), and the 
international community. As retired General Jim Jones testified to the 
committee, there are currently over 60 countries with a presence on the 
ground in Afghanistan, as well as NATO, the European Union, and the 
United Nations (U.N.). What will be the responsibilities of the 
position for which you've been nominated for bringing coherence within 
the U.S. Government to the military and civilian components of the 
Afghanistan mission?
    General Lute. If confirmed, I will be in a position to contribute 
in two basic ways. First, we in the U.S. Government must ensure that 
U.S. initiatives in Afghanistan are coordinated as part of a coherent 
U.S. approach to the complex problems there. Second, as one of the 26 
members of the NATO alliance, we must continue to contribute to the 
NATO effort and aim to move it and other international actors toward a 
more comprehensive approach that includes governance and economic 
development as well as security. Both of these responsibilities entail 
coordinating across the departments of the U.S. interagency in support 
of our military and civilian leaders in the field, in both the policy 
development and the policy execution arenas.

    3. Senator Levin. LTG Lute, what will be the responsibilities of 
this position for integrating efforts at the international level to 
bring stability and security to Afghanistan?
    General Lute. Success in Afghanistan has international and national 
dimensions. If confirmed, I will assist the President and the other 
statutory members of the National Security Council to develop and 
execute those parts of our strategy for Afghanistan that may require 
integration of international and coalition matters.

    4. Senator Levin. LTG Lute, will you have staff dedicated to 
coordinating this international effort?
    General Lute. If confirmed, I will have access to the staff 
resources of the NSC--including staff with a primary focus on the 
international dimensions of Iraq and Afghanistan conflicts. I will also 
work with Principals to ensure adequate focus, attention, and resources 
are provided for our international engagement efforts in support of 
Afghanistan.

                  WINDOW OF OPPORTUNITY IN AFGHANISTAN

    5. Senator Levin. LTG Lute, according to British General David 
Richards, former Commander of the NATO International Security 
Assistance Force (ISAF), there may be a limited ``window of 
opportunity'' for ISAF, the Afghan Government, and the international 
community to increase the focus on governance and development to 
benefit the Afghan people. Last fall, General Richards spoke about the 
need for the Afghan people to see ``demonstrable improvement'' in their 
lives over the next 6 months, or else an increasing number might choose 
``the rotten future offered by the Taliban'' over the ``hopeful 
future'' promised by coalition forces but not delivered. What steps do 
you believe need to be taken in the near term to make a demonstrable 
improvement in the lives of the Afghan people?
    General Lute. In the near-term I believe we need to focus on 
security, roads, and electricity. Security includes addressing the 
Taliban safe haven in Pakistan. These are not short-term-only projects, 
however; they require a long-term, coordinated approach that over time 
extends the positive influence of the central government of Afghanistan 
out to the provinces. In the end, the struggle in Afghanistan is about 
governance.

                            CIVILIAN DEATHS

    6. Senator Levin. LTG Lute, a series of incidents involving U.S. 
airstrikes or attacks by U.S. Special Operations Forces are reported to 
have resulted in the deaths of at least 90 civilians over the past 
several weeks. According to news reports, the issue of civilian deaths 
is also leading to resentment among the Afghan people and tensions 
between American commanders and NATO commanders who are concerned NATO 
forces are being blamed for deaths resulting from U.S. counterterrorism 
operations. In early May, Afghan President Karzai declared that his 
government can ``no longer accept'' the civilian casualties resulting 
from U.S.-led operations. Are you concerned by these reports of growing 
Afghan resentment and NATO tension over civilian deaths?
    General Lute. Yes, I am concerned, as are the military and civilian 
leaders in the field and here in Washington. The commands investigate 
every incident to determine if procedures were followed and whether 
procedures need to be revised. The commands also continuously 
reevaluate our tactics to ensure that the benefits of our operations 
outweigh the potential damage to our overall strategic-level goals that 
could result from civilian casualties.

    7. Senator Levin. LTG Lute, are these reports of civilian deaths 
undermining our efforts to win the ``hearts and minds'' of the Afghan 
people for the coalition's mission? What steps, if any, are you taking 
in response?
    General Lute. A rise in civilian deaths could certainly lead to 
erosion of public support for the NATO mission among Afghans and if 
such a rise continued unabated, then it could jeopardize the mission. I 
believe our civilian and military leaders are fully aware of the 
potential for adverse effects and are taking all prudent steps to 
prevent civilian casualties. We should appreciate that these incidents 
are not all accidents, however; some are deliberate acts attributable 
to the enemy who hides among civilians and even uses them as shields 
against NATO and coalition operations. In any case, all steps must be 
taken to abide by the rules of engagement and avoid civilian 
casualties.

    8. Senator Levin. LTG Lute, according to one news report, a U.S. 
military official said that some civilian casualties in Afghanistan 
over the past year are the result of a reliance on air power to 
compensate for a shortage of troops. Do you agree with this assessment? 
Are additional coalition troops needed in Afghanistan?
    General Lute. The senior NATO commander reports he has sufficient 
troops to accomplish his combat mission. More forces are required to 
train and advise the Afghan army and police.

      COUNTERDRUG STRATEGY--SHIFT FROM ERADICATION TO INTERDICTION

    9. Senator Levin. LTG Lute, in November, the U.N. and World Bank 
released a report on the drug industry in Afghanistan that concluded 
that international efforts to combat opium production--which would 
include almost $400 million in Department of Defense counternarcotics 
funds--have failed. The report recommended focusing on interdiction, 
and targeting opium refining facilities and wealthy drug lords. Last 
month a report by the Center for Strategic and International Studies 
(CSIS) on Afghanistan also recommended shifting the effort from 
eradication to interdiction and paying farmers for poppy, and not to 
grow poppy. Your written response to the committee's pre-hearing policy 
questions indicates that you have read these reports. Do you agree with 
the recommendations made by the U.N./World Bank and CSIS reports--that 
international forces should focus more on interdiction, capturing drug 
lords, and destroying drug facilities? If so, should the U.S. military 
help with interdiction?
    General Lute. The counterdrug dimension of the overall mission in 
Afghanistan must be part of a coherent campaign plan for Afghanistan, 
with priorities established, responsibilities assigned, progress 
measured, and follow-up conducted. There is much work to be done to 
place counterdrug actions in this larger context, both within U.S. 
policy and within the international effort. Within such a comprehensive 
approach, I believe that the counterdrug mission is mainly a law 
enforcement role, with international and U.S. military in support. The 
current U.S. counternarcotics policy is a solid foundation and has five 
pillars: public information, alternative livelihoods, eradication and 
elimination, interdiction and law enforcement operations, and justice 
reform and prosecution.

    10. Senator Levin. LTG Lute, my understanding is that the U.S. 
military does not currently have a counternarcotics mission in 
Afghanistan. U.S. forces have been instructed to seize narcotics and 
destroy labs that they come across during the course of their normal 
operations, but they do not have an explicit order to seek and seize or 
destroy narcotics, drug lords, or narcotics labs. Should U.S. forces 
have an explicit counterdrug mission in Afghanistan?
    General Lute. No, in my view the counterdrug mission is mainly a 
law enforcement effort, with international and U.S. military in 
support. The U.S. military support role includes intelligence sharing, 
in extremis medical and fire support, and logistic support, when 
available.

    11. Senator Levin. LTG Lute, if confirmed, would you review the 
military role in drug interdiction in Afghanistan to see if there is 
more that NATO and U.S. forces can do?
    General Lute. Yes.

    12. Senator Levin. LTG Lute, would you work to ensure that NATO and 
U.S. forces have the same counterdrug policies, especially towards 
eradication?
    General Lute. Yes.

            DRUG ERADICATION AND COUNTERTERRORIST OBJECTIVES

    13. Senator Levin. LTG Lute, critics of drug eradication efforts in 
Afghanistan, such as the World Bank and U.N., have stated that 
eradicating poppy hurts small, low-income farmers and turns them away 
from the Afghan government and into Taliban supporters, thereby 
undermining our counterterrorism efforts. Yet, the State Department 
Coordinator for Counternarcotics and Justice Reform in Afghanistan 
briefed to committee staff recently that only 15 percent of Afghans 
grow poppy and that the majority of new cultivation is not being 
conducted by small farmers, but by powerful drug dealers. Do you agree 
with the State Department Coordinator's assessment regarding who would 
be impacted by eradication efforts in areas that have seen the greatest 
expansion of poppy cultivation?
    General Lute. I am not an expert in this field, but if confirmed I 
will aim to place counterdrug measures such as eradication into the 
context of a broad, comprehensive strategy that addresses all the 
dimensions of the challenges in Afghanistan.

    14. Senator Levin. LTG Lute, what is your view on the tradeoff 
between eradication and counterterrorism efforts?
    General Lute. I believe that in complex environments such as 
Afghanistan measures that fix one problem often reveal challenges 
elsewhere. So, there may well be a trade-off between eradication on the 
one hand and grassroots support for the Taliban on the other (although 
this may vary from region to region depending on other issues). This 
sort of interrelationship highlights why a comprehensive policy 
approach is required, rather than a set of discreet approaches to 
individual challenges.

    15. Senator Levin. LTG Lute, how should eradication be implemented 
or targeted to address counterterrorism concerns?
    General Lute. I do not have a fixed opinion on this matter, but if 
confirmed I would rely on the expert assessments from the field that 
account for the complexities on the ground.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                           FIGHTING TERRORISM

    16. Senator Akaka. LTG Lute, a recent State Department report found 
that terrorists are changing their tactics. Specifically, the report 
states that ``Early terrorist attacks were largely expeditionary. The 
organization selected and trained terrorists in one country, then 
clandestinely inserted a team into the target country to attack a pre-
planned objective.'' The report further states that ``We have seen a 
trend toward guerilla terrorism, where the organization seeks to grow 
the team close to its target, using target country nationals.'' 
Finally, the report states that there is a ``shift in the nature of 
terrorism, from traditional international terrorism of the late 20th 
century into a new form of transnational non-state warfare that 
resembles a form of global insurgency. This represents a new era of 
warfare.'' This report suggests that the battlefield for the war 
against terror is not limited to Iraq and Afghanistan. This concept of 
terror turns the entire world into a battlefield. It seems to 
strengthen the argument that we need to attack al Qaeda directly in 
Pakistan rather than use Iraq as a surrogate battlefield. How do you 
think this change in terrorist strategy should affect our military 
strategies in Iraq and Afghanistan?
    General Lute. I agree that the war against terror is not limited to 
Iraq and Afghanistan. I believe we need to strike al Qaeda wherever we 
find them and seek to deny them safe haven from which they can marshal 
resources for international attacks. Al Qaeda has declared and 
demonstrated its intent to establish safe havens in both Iraq and 
Afghanistan and we should continue to take all steps to ensure they are 
defeated in this effort.

    17. Senator Akaka. LTG Lute, it seems that our strategy should 
include doing more to attack the roots of terrorism to minimize the 
sources of new terrorist recruits. Do you agree? If so, what strategies 
do you suggest we use to attack the roots of terrorism?
    General Lute. I agree that comprehensive counter-terror strategy 
takes into account the root causes of the problem, not just the 
symptoms. The current U.S. national plan is founded on a multi-faceted 
approach and will require long-term commitment of the U.S. Government 
to gain the effects required. Important components include information 
operations to counterterrorist propaganda, measures to counter 
terrorist financing, and steps to improve the counterterrorist 
capacities of key partners, especially those which are most susceptible 
to terrorist threats.

                            AL QAEDA IN IRAQ

    18. Senator Akaka. LTG Lute, it is my understanding that most of al 
Qaeda in Iraq's (AQIs) funding and training support comes from regional 
sources, including Jordan, Syria, and Saudi Arabia. I also understand 
that it gets some financial support from Tehran (despite the fact that 
AQI is a Sunni organization), according to documents confiscated last 
December from Iranian Revolutionary Guards operatives in northern Iraq. 
However, it is my understanding that the bulk of AQI's financing comes 
from smuggling and crime. You stated during the hearing that al Qaeda's 
main focus is now on Iraq. What evidence (other than al Qaeda 
propaganda statements) is there that supports your belief that al Qaeda 
is primarily focusing its resources in Iraq?
    General Lute. AQI draws resources from both within Iraq and from 
across the region. I believe that AQI is largely self-sustaining and, 
aside from propaganda and public statements of support, does not 
require substantial financing or other forms of tangible support from 
al Qaeda leaders outside Iraq. AQI is a decentralized element of al 
Qaeda; the relationship is not strictly hierarchical. I conclude that 
the al Qaeda movement's main effort is Iraq because that is what their 
senior leaders declare and the scale of effort in Iraq dwarfs all other 
operations. Much of al Qaeda's focus is on Iraq. Al Qaeda senior 
leaders recognize the importance of Iraq as the central battlefield for 
the return of the Islamic Caliphate. Both Bin Ladin and Zawahiri have a 
keen interest in success in Iraq, and have encouraged AQI to use Iraq 
as a platform for spreading the Islamic caliphate and for conducting 
external attacks.

    19. Senator Akaka. LTG Lute, clearly in the past couple of years, 
al Qaeda has launched high profile attacks in other countries while 
seemingly not really being involved in Iraq. One could argue that they 
have successfully bogged down our resources in Iraq with minimal 
investment on their part. It seems that al Qaeda's main focus really 
has been reconstituting itself in Pakistan and supporting Taliban 
efforts to retake Afghanistan. Do you agree? If not, why not?
    General Lute. I agree that al Qaeda is reconstituting in the 
western border regions of Pakistan and that they support the Taliban's 
efforts to reestablish safe haven in Afghanistan. I disagree regarding 
al Qaeda's role in Iraq. While we have seen some high-profile attacks 
outside Iraq in the past 2 years, we have seen nearly 1,000 suicide 
attacks within Iraq in 2005-2006. While these attacks are directed by 
AQI itself and not directed centrally by al Qaeda senior leaders, this 
level of effort represents the main front for the movement at large. 
While the fight in Iraq continues under AQI, the broader al Qaeda 
continues to seek safe haven wherever it can and continues to plot 
against the U.S. and our allies globally. Al Qaeda and AQI are bound 
together loosely by common ideology, not so much by shared resources. 
The diversity and steady flow of foreign jihadists to Iraq indicates 
the conflict is central to al Qaeda recruitment efforts.

    20. Senator Akaka. LTG Lute, during your confirmation hearing, 
Senator Bayh pointed out that we cannot let al Qaeda define how most 
intelligently to pursue our national security interests. In addition, 
he stated that the Central Intelligence Agency's top expert on radical 
Islam believes that our presence in Iraq is creating more members of al 
Qaeda than we are killing in Iraq, to which you replied that ``we have 
to balance those sorts of assessments, which I think have some 
credibility, with a gross adjustment in the other direction, which 
might feature leaving Iraq to al Qaeda.'' Is it your professional 
opinion that if the United States were to begin phased redeployment of 
our troops out of Iraq, then al Qaeda in Iraq would likely defeat all 
other parties in Iraq and assume control of the country, creating a 
terrorist state? If so, why?
    General Lute. I believe it is in the U.S. interest to defeat AQI, 
denying them a safe haven in Iraq. I do not believe it is likely that 
AQI will take control of Iraq, but they could establish safe haven 
without controlling the entire country, and we and our Iraqi partners 
must prevent this from happening. As long as AQI has a presence in 
Iraq, either overtly or in clandestine cells, AQI will continue 
attempts to sow instability, and the larger al Qaeda movement will seek 
to leverage the group's capabilities for transnational attacks. I also 
agree with the National Intelligence Estimate on Iraq (January 2007), 
which recognized that: ``AQI would attempt to use parts of the 
country--particularly al Anbar province--to plan increased attacks in 
and outside of Iraq'' in the event of a rapid Coalition withdrawal. The 
best way to prevent a terrorist safe haven in Iraq is to help the 
democratically elected Iraqi Government establish an Iraq that can 
sustain, govern, and secure itself, and serve as a U.S. partner in the 
war on terror.

    21. Senator Akaka. LTG Lute, do you think the al Qaeda takeover 
scenario is very likely if we were to pull our troops out--more likely 
than a regional conflict or the emergence of a Shia-dominated state?
    General Lute. I believe that if we were to leave Iraq before the 
Iraqis were able to govern themselves, then al Qaeda would win in two 
ways: first, they would be able to establish safe haven within under-
governed spaces in Iraq, and second, they would declare that they had 
defeated America in the main fight, giving the larger AQ movement a 
huge propaganda victory. I agree with the assessment of the Baker 
Hamilton Iraq Study Group: ``Al Qaeda will portray any failure by the 
United States in Iraq as a significant victory that will be featured 
prominently as they recruit for their cause in the region and around 
the world.'' This is not to say that AQI would seize control of all of 
Iraq; I do not believe that is likely because the vast majority of 
Iraqis themselves do not support AQI's vision of the future. Today 
there are indications that anti-AQI sentiment is spreading in Iraq. 
This sentiment has in some cases translated into anti-AQI action, and 
groups that oppose AQI have formed in al Anbar province, Baghdad, and 
increasingly in parts of Salah ad-Din and Diyala provinces. It will be 
important in the coming weeks to sustain these efforts, with coalition 
and, most important, Iraqi Government support.

                       INSURGENCY GROUPS IN IRAQ

    22. Senator Akaka. LTG Lute, during a hearing last month, Admiral 
Fallon stated that insurgency groups in Iraq have multiple and often 
competing motivations for perpetuating violence; however, they are 
united by two things: opposition to U.S. and coalition forces and 
refusal to accept the legitimacy of an inclusive, representative 
government. Do you agree with the admiral's statement, and if so, what 
strategies would you recommend we use to try and bring these groups to 
the table to discuss their differences, and potentially address the 
underlying problems causing their resistance?
    General Lute. I agree with Admiral Fallon's statement. I support 
the ongoing, near-term effort to suppress sectarian violence, 
especially in Baghdad, in order to provide time and space for Iraqi 
political and economic progress that addresses underlying causes. An 
important part of this effort is to attack and root out extremist 
networks, both Sunni and Shia, which serve as a primary accelerator of 
sectarian violence. We must also address the unhelpful influences of 
Syria and Iran in Iraq. While we support the government and continue to 
press for progress, I believe political solutions must be essentially 
Iraqi. Only the Iraqis can move toward a meaningful sharing of 
political and economic power that will undercut effectively the sources 
of violence. Beyond the near-term, we need to set intermediate 
objectives that move us toward a more sustainable, normalized 
relationship with Iraq that addresses our long-term interests in the 
region.
                                 ______
                                 
               QUESTIONS SUBMITTED BY SENATOR MARK PRYOR
                        ADVICE TO THE PRESIDENT

    23. Senator Pryor. LTG Lute, the Goldwater-Nichols Act of 1986 
established the Chairman of the Joint Chiefs of Staff to act as an 
advisor to the President of the United States. Admiral Fallon, General 
Petraeus, and General Casey, for example, are also avenues of 
information for which the President may rely on for advice. How will 
the advice provided from you differ or have more significance than the 
advice from these military leaders?
    General Lute. This position would supplement and not replace the 
advice the President receives on Iraq and Afghanistan from his 
principals. If confirmed, the advice I would offer would focus on the 
execution of policy decisions and on the coordination of our efforts in 
meeting our objectives. I would also help facilitate policy development 
and ensure that all elements of national power are working together to 
advance our national interests in these critical theaters.

    24. Senator Pryor. LTG Lute, if this position separates you from 
other military leaders by the fact that you would have 24-hour access 
to personally provide advice to the President, then how would your 
advice be more significant than those military leaders providing advice 
whose information comes from having 24-hours-a-day of ``boots on the 
ground'' like General Petraeus?
    General Lute. If confirmed, I do not believe my advice would be 
``more significant'' than the advice the President receives from 
leaders in the field who are in closest contact with the day-to-day 
challenges and potential solutions. My advice would focus on U.S. 
interagency coordination in Iraq and Afghanistan and on the execution 
of policy. This is a different perspective, not necessarily a competing 
perspective. I would also help ensure that our leaders in the field 
receive the full support and dedicated resources from the many Federal 
agencies and departments of the U.S. Government to help prosecute their 
missions.

                         INFORMATION GATHERING

    25. Senator Pryor. LTG Lute, with the current high operational 
tempo in the war in Iraq, how will you gather information and prepare 
your assessments from the field, but do so in a transparent way as to 
not interrupt a deployed military commander's ability to prosecute the 
war?
    General Lute. If confirmed, I would draw mainly on existing 
reporting arrangements and supplement these with routine personal 
contact with leaders in the field and with counterparts in the 
interagency. I would seek to avoid new requirements for information or 
timeconsuming reports, while ensuring the U.S. interagency is focused 
on the field leaders' priorities.

                            IRAQ STUDY GROUP

    26. Senator Pryor. LTG Lute, what is your opinion of the 
recommendations made by the Iraq Study Group?
    General Lute. I believe the Iraq Study Group recommendations 
represent significant contributions to our ongoing policy execution and 
to future policy development.

                            IRAQI GOVERNMENT

    27. Senator Pryor. LTG Lute, do you believe the government of Iraq 
can achieve certain comprehensive security, political, and economic 
milestones to transition the United States' mission from one of combat 
to support?
    General Lute. Yes, with our assistance and support from the region.
                                 ______
                                 
    [The nomination reference of LTG Douglas E. Lute, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 23, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Army to the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C., section 601:

                        To be Lieutenant General

    LTG Douglas E. Lute, USA, 2691.
                                 ______
                                 
    [The biographical sketch of LTG Douglas E. Lute, USA, which 
was transmitted to the committee at the time of the nomination 
was referred, follows:]
           Transcript of Service of LTG Douglas E. Lute, USA
Source of commissioned service: USMA

Military schools attended:
    Armor Officer Basic and Advanced Courses.
    British Army Staff College.
    Senior Service College Fellowship-The Atlantic Council.

Educational degrees:
    United States Military Academy--BS--No Major.
    Harvard University--MPA--Public Administration.

Foreign language(s): Spanish.

Promotions:

------------------------------------------------------------------------
                                                            Dates of
                      Promotions                          appointment
------------------------------------------------------------------------
2LT..................................................        4 Jun. 1975
1LT..................................................        4 Jun. 1977
CPT..................................................       18 Nov. 1979
MAJ..................................................        1 Jun. 1986
LTC..................................................        1 Feb. 1992
COL..................................................        1 Sep. 1996
BG...................................................        1 Oct. 2002
MG...................................................        1 Jan. 2006
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
May 1976........................  May 1978..........  Platoon Leader,
                                                       later Troop
                                                       Executive
                                                       Officer, 1st
                                                       Squadron, 2d
                                                       Armored Cavalry,
                                                       VII Corps, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany.
May 1978........................  Dec. 1980.........  S-1 (Adjutant),
                                                       later Commander,
                                                       C Troop, 1st
                                                       Squadron, 2d
                                                       Armored Cavalry,
                                                       VII Corps, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany.
Jan. 1981.......................  July 1981.........  Student, Armor
                                                       Officer Advanced
                                                       Course, United
                                                       States Army Armor
                                                       School, Fort
                                                       Knox, KY.
July 1981.......................  June 1983.........  Student, Kennedy
                                                       School of
                                                       Government,
                                                       Harvard
                                                       University,
                                                       Cambridge, MA.
June 1983.......................  Sep. 1986.........  Instructor, later
                                                       Assistant
                                                       Professor,
                                                       Department of
                                                       Social Sciences,
                                                       United States
                                                       Military Academy,
                                                       West Point, NY.
Sep. 1986.......................  Dec. 1987.........  Student, British
                                                       Army Staff
                                                       College, United
                                                       Kingdom.
Dec. 1987.......................  Apr. 1989.........  S-3 (Operations),
                                                       1st Squadron, 2d
                                                       Armored Cavalry
                                                       Regiment, VII
                                                       Corps, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany.
May 1989........................  June 1990.........  S-3 (Operations),
                                                       2d Armored
                                                       Cavalry Regiment,
                                                       United States
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany.
June 1990.......................  Nov. 1990.........  Special Assistant
                                                       to the Vice Chief
                                                       of Staff, Army,
                                                       Washington, DC.
Nov. 1990.......................  Apr. 1991.........  S-3 (Operations),
                                                       2d Annored
                                                       Cavalry, VII
                                                       Corps, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany and
                                                       Operations Desert
                                                       Shield/Storm,
                                                       Saudi Arabia.
Apr. 1991.......................  July 1992.........  Speechwriter,
                                                       Office of the
                                                       Chief of Staff,
                                                       Army, Washington,
                                                       DC.
July 1992.......................  July 1994.........  Commander, 1st
                                                       Squadron, 197th
                                                       Cavalry Regiment,
                                                       1st Cavalry
                                                       Division, Fort
                                                       Hood, TX.
July 1994.......................  June 1996.........  Politico-Military
                                                       Planner, later
                                                       Chief, Central
                                                       and Eastern
                                                       European Branch,
                                                       J-5, The Joint
                                                       Staff,
                                                       Washington, DC.
June 1996.......................  June 1997.........  Senior Service
                                                       College Fellow,
                                                       The Atlantic
                                                       Council of the
                                                       United States,
                                                       Washington, DC.
July 1997.......................  Aug 1998..........  Executive
                                                       Assistant, Office
                                                       of the Special
                                                       Assistant to the
                                                       Deputy Secretary
                                                       of Defense for
                                                       Gulf War
                                                       Illnesses,
                                                       Washington, DC.
Sep. 1998.......................  Aug 2000..........  Commander, 2d
                                                       Armored Cavalry
                                                       Regiment, Fort
                                                       Polk, LA.
Aug 2000........................  Oct 2001..........  Executive
                                                       Assistant to the
                                                       Chairman of the
                                                       Joint Chiefs of
                                                       Staff, The Joint
                                                       Staff,
                                                       Washington, DC.
Oct 2001........................  Jan. 2003.........  Assistant Division
                                                       Commander
                                                       (Support),1st
                                                       Infantry
                                                       Division, United
                                                       State Army Europe
                                                       andSeventh Army,
                                                       Germany and
                                                       Commander,
                                                       Multinational
                                                       Brigade (East),
                                                       Task Force
                                                       Falcon, KFOR,
                                                       Camp Bondsteel,
                                                       Kosovo.
Jan. 2003.......................  June 2004.........  Deputy Director
                                                       for Operations, J-
                                                       3. United States
                                                       European Command,
                                                       Germany.
June 2004.......................  Sep. 2006.........  Director of
                                                       Operations, J-3,
                                                       United States
                                                       Central Command,
                                                       MacDill Air Force
                                                       Base, FL.
------------------------------------------------------------------------

Summary of joint assignments:

------------------------------------------------------------------------
                                         Dates               Rank
------------------------------------------------------------------------
Politico-Military Planner, later  July 1994-June      Lieutenant Colonel
 Chief, Central and Eastern        1996.
 European Branch, J-5, The Joint
 Staff, Washington, DC (No Joint
 Credit).
Executive Assistant, Office of    July 1997-Aug.      Colonel
 the Special Assistant to the      1998.
 Deputy Secretary of Defense for
 Gulf War Illnesses, Washington,
 DC.
Executive Assistant to the        Aug. 2000-Oct.      Colonel
 Chairman of the Joint Chiefs of   2001.
 Staff, The Joint Staff,
 Washington, DC.
Deputy Director for Operations,   Jan. 2003-June      Brigadier General
 J-3, United States European       2004.
 Command, Germany.
Director of Operations, J-3,      June 2004-Sep.      Brigadier General
 United States Central Command,    2006.
 MacDill Air Force Base, FL.
Director for Operations, J-3,     Sep. 2006-Present.  Major General
 The Joint Staff, Washington,
 DC.
------------------------------------------------------------------------


U.S. decorations and badges:
    Defense Distinguished Service Medal
    Defense Superior Service Medal (with 3 Oak Leaf Clusters)
    Legion of Merit (with Oak Leaf Cluster)
    Bronze Star Medal
    Defense Meritorious Service Medal
    Meritorious Service Medal (with 4 Oak Leaf Clusters)
    Joint Service Commendation Medal
    Army Commendation Medal (with 2 Oak Leaf Clusters)
    Army Achievement Medal
    Parachutist Badge
    Ranger Tab
    Office of the Secretary of Defense Identification Badge
    Joint Chiefs of Staff Identification Badge
    Army Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by LTG Douglas E. 
Lute, USA, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Douglas E. Lute.

    2. Position to which nominated:
    Assistant to the President/Deputy National Security Advisor for 
Iraq and Afghanistan.

    3. Date of nomination:
    23 May 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    3 Nov. 1952; Michigan City, Indiana.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Jane Holl Lute (maiden name: Holl).

    7. Names and ages of children:
    Amy Kyleen Lute, 20; Adellyn Polomski, 19; and Kamryn Lute; 2.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Association of United States Army.
    Member, Second Cavalry Association.
    Member, USMA Association of Graduates.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    During my service as the J-3 to the JCS I have always honored my 
obligations to this committee to offer testimony when requested. With 
this new assignment, if confirmed, I am advised that as an assistant to 
the President, principles designed to ensure that the President is 
provided with candid advice and to protect the autonomy of the Office 
would apply to me as they do to preclude the testimonial appearances of 
other senior advisors to the President, especially as they concern 
matters of national security. I understand that these principles have 
applied to all other active duty military officers who have served as 
senior advisors to the President, including those serving as National 
Security Advisor and Deputy National Security Advisor, in prior 
administrations.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes. If consistent with the limitations indicated in response to 
Question 12, I were to testify before any duly constituted committee of 
Congress, any response I provided to a question, including a question 
seeking my personal views, would be truthful.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                         D.E. Lute.
    This 18th day of May, 2007.

    [The nomination of LTG Douglas E. Lute, USA, was reported 
to the Senate by Chairman Levin on June 26, 2007, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on June 28, 2007, by a roll call 
vote of 94-4, with 1 voting present.]


NOMINATIONS OF MICHAEL G. VICKERS TO BE ASSISTANT SECRETARY OF DEFENSE 
FOR SPECIAL OPERATIONS AND LOW-INTENSITY CONFLICT; VADM ERIC T. OLSON, 
   USN, FOR APPOINTMENT TO THE GRADE OF ADMIRAL AND TO BE COMMANDER, 
UNITED STATES SPECIAL OPERATIONS COMMAND; AND HON. THOMAS P. D'AGOSTINO 
 TO BE UNDER SECRETARY FOR NUCLEAR SECURITY, DEPARTMENT OF ENERGY, AND 
     ADMINISTRATOR OF THE NATIONAL NUCLEAR SECURITY ADMINISTRATION

                              ----------                              


                         TUESDAY, JUNE 12, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Jack Reed, 
presiding.
    Committee members present: Senators Reed, Webb, Warner, 
Inhofe, Thune, and Martinez.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Evelyn N. Farkas, professional staff member; and Peter 
K. Levine, general counsel.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; David M. Morriss, minority counsel; Lucian L. 
Niemeyer, professional staff member; Lynn F. Rusten, 
professional staff member; and Richard F. Walsh, minority 
counsel.
    Staff assistants present: Kevin A. Cronin and Micah H. 
Harris.
    Committee members' assistants present: Elizabeth King, 
assistant to Senator Reed; Christopher Caple, assistant to 
Senator Bill Nelson; Jon Davey, assistant to Senator Bayh; 
Gordon I. Peterson, assistant to Senator Webb; Sandra Luff, 
assistant to Senator Warner; Anthony J. Lazarski, assistant to 
Senator Inhofe; Lenwood Landrum, assistant to Senator Sessions; 
Jason Van Beek, assistant to Senator Thune; and Brian W. Walsh 
and Michael D. Zehr, assistants to Senator Martinez.

             OPENING STATEMENT OF SENATOR JACK REED

    Senator Reed. Let me call the hearing to order. Today the 
committee considers the nominations of Michael G. Vickers to be 
Assistant Secretary of Defense for Special Operations and Low-
Intensity Conflict (SO/LIC); Vice Admiral Eric T. Olson, United 
States Navy, to be Commander, United States Special Operations 
Command (SOCOM); and the Honorable Thomas P. D'Agostino, to be 
Under Secretary for Nuclear Security, Department of Energy 
(DOE), and Administrator of the National Nuclear Security 
Administration (NNSA).
    I also note that the Secretary of Energy, Secretary Samuel 
W. Bodman, is here. Mr. Secretary, welcome. In a moment we'll 
ask you to make a comment if you'd like.
    We welcome our nominees and their families to today's 
hearing. We know the long hours that senior Department of 
Defense (DOD) and DOE officials put in every day and we 
appreciate the sacrifices that our nominees are willing to make 
to serve their country. We know that they will not be alone in 
making these sacrifices, so we thank in advance the family 
members of our nominees for the support and assistance that we 
know they will need to provide.
    Our committee has a longstanding tradition of asking our 
nominees to introduce family members who may be present. Mr. 
Vickers, if you would like to introduce your family members 
that are here we'd be delighted.
    Mr. Vickers. Thank you, Mr. Chairman.
    Behind me is my wife Melana Vickers and my three oldest 
daughters, Natasha Vickers, Alexandra Vickers, and Sophia 
Vickers; and then in the row behind them is my mother-in-law, 
Oksana Bashuk Hepburn, and my brother-in-law, Roman Zyla. We 
have two other daughters that could not be here today with 
their dad. They're 5- and 2-years-old and they would have 
stolen the show.
    Senator Reed. Thank you very much, Mr. Vickers.
    Admiral Olson, I understand your family, who served the 
Navy and the Nation with great energy over many years, are 
taking a little respite. So do you have any of your other 
family members here today?
    Admiral Olson. Mr. Chairman, I regret and my family regrets 
that they're not here with me today. My wife and partner of 25 
years Marilyn, my 20-year-old son Daniel, my 17-year-old 
daughter Alyssa are off on a long-delayed and much anticipated 
trip. But I know that I would not be here today without their 
enduring love and support.
    Senator Reed. We thank them, Admiral, for their service to 
the Navy and the Nation also.
    Mr. D'Agostino, do you have family members present?
    Mr. D'Agostino. Yes, Mr. Chairman. I'd like to introduce my 
mother, Dr. Annie-Claude D'Agostino, and to her left, my 
father, Thomas Salvatore D'Agostino. My wife, Beth, and 
children, Anne and Tommy, unfortunately are out of town and 
unable to participate in the hearing. But I do owe them a great 
debt of gratitude for allowing me to spend the time and energy 
that's important for these positions.
    Thank you very much, sir.
    Senator Reed. Thank you very much, Mr. D'Agostino.
    Each of our nominees will be called upon, if confirmed, to 
make important contributions to our national security. Michael 
Vickers has been nominated for the position of Assistant 
Secretary of Defense for Special Operations and Low-Intensity 
Conflict (ASD-SO/LIC). He has served as an Army Special Forces 
noncommissioned officer and officer and as a Central 
Intelligence Agency (CIA) operations officer and is regarded as 
an expert on special operations.
    Mr. Vickers has been nominated at a time when the position 
of ASD-SO/LIC may change substantially as a result of the 
planned reorganization of the Office of the Under Secretary of 
Defense for Policy. If that reorganization goes forward as 
contemplated, the ASD-SO/LIC will be responsible not only for 
special operations issues, but also for strategic forces 
policy, transformation, and the major force program budgets.
    This committee has expressed concern that this new span of 
responsibility may impede the ability of the Assistant 
Secretary to maintain special operations as his principal duty, 
as required by section 138 of title 10.
    Vice Admiral Eric Olson is the first Navy SEAL ever to be 
nominated for a fourth star and also the first naval officer to 
be nominated to command SOCOM. Admiral Olson has served for the 
last several years as Deputy Commander of SOCOM. He has 
commanded at every level from SEAL platoon to the Navy's 
Special Warfare Force Commander. He has served in several 
conflicts and operations, including as a United Nations (U.N.) 
military observer in Israel, Egypt, and in Asia.
    If confirmed, Admiral Olson will take command of our 
Special Operations Forces (SOF) at a time of significant 
expansion in mission, size, and budget and when operational 
tempo (OPTEMPO) and personnel tempo are at historic highs, 
threatening to jeopardize long-term readiness.
    Mr. D'Agostino has been nominated to be the Under Secretary 
of Energy for Nuclear Security and the Administrator of the 
NNSA. If confirmed, he will have responsibility not only for 
the nuclear weapons programs, but also for the nonproliferation 
programs. We hope that Mr. D'Agostino will be as strong an 
advocate for these programs as his predecessors have been.
    NNSA has focused its efforts on securing and consolidating 
nuclear weapons and nuclear radiological material so that they 
are not stolen or lost to become nuclear weapons or dirty bombs 
and to detect any such materials should an attempt be made to 
move them from country to country. One of the most significant 
challenges facing NNSA is detection capability, as the most 
dangerous materials, plutonium and highly enriched uranium, are 
the most difficult to detect.
    These are all critically important positions and I look 
forward to the testimony of our nominees. At this time I'd like 
to call on Senator Warner for any comments he may have. 
Senator?

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you very much, Mr. Chairman. I join 
you in welcoming these three distinguished individuals, each of 
whom have indicated a willingness to continue their long public 
service, and I commend the President for having chosen very 
wisely. Also, I thank all family members who are present here 
today and those in absentia. The nominees each duly 
acknowledged that their careers are highly dependent upon the 
family members for the support needed to carry out the 
responsibilities, which often involve many long hours.
    Mr. Chairman, you gave a very thorough biographical sketch 
of each of these nominees. I will not go into more detail. I'll 
just ask that the remarks of Senator McCain, the ranking 
member, be placed in the record.
    [The prepared statement of Senator McCain follows:]

               Prepared Statement by Senator John McCain

    Thank you, Senator Reed.
    I join you in welcoming Admiral Olson, Mr. Vickers, Mr. D'Agostino, 
and their families and congratulating them on their nominations.
    The importance of the United States Special Operations Command and 
the pivotal role our Special Operations Forces play in national defense 
cannot be overstated.
    The origins of the Special Operations Command can be traced to the 
aborted Desert One operation of April 25, 1980. Largely due to the 
efforts of this committee and our former colleagues, Senator William 
Cohen and Senator Sam Nunn, 7 years later in April 1987, the Special 
Operations Command was formed. Our Nation is indebted to these highly 
trained and dedicated special operators who have to undergo such 
rigorous training to prepare themselves for the duties they perform.
    Admiral Olson, having served as the Deputy Commander of the Special 
Operations Command since August 2003, you are well prepared to relieve 
a great soldier, General Bryan Brown. If confirmed, you will be the 
first Navy SEAL to lead the Special Operations Command and to achieve 
4-star rank. You will follow in the steps of some superb officers, 
including General Brown, General Hugh Shelton, General Wayne Downing, 
General Peter Schoomaker, and others. I congratulate you on this 
achievement.
    Michael Vickers is a Senior Vice President for Strategic Studies at 
the Center for Strategic and Budgetary Assessments, a public policy 
research institute located in Washington, DC. Mr. Vickers served on 
active duty as an Army Special Forces Officer and CIA Operations 
Officer from 1973 to 1986. Mr. Vickers has been involved in numerous 
special forces operations, and more recently, has worked with senior 
officials on the Quadrennial Defense Review and ongoing operations. I 
consider the position of Assistant Secretary of Defense for Special 
Operations and Low Intensity Conflict to be one of the most important 
in the Department, and thank you for your willingness to serve in this 
capacity.
    Mr. D'Agostino last came before the committee in February 2006 and 
was confirmed for his current position as Deputy Administrator of the 
National Nuclear Security Administration for Defense Programs shortly 
thereafter. As a result--at least in part--of his Navy service under 
the leadership of Admiral Rickover and his experience in the NNSA and 
the Stockpile Stewardship Program, Mr. D'Agostino has a clear vision 
for the future of this organization, which, once again, this committee 
was so involved in creating.
    I thank each of our nominees and look forward to their testimony.

    Senator Warner. I would say, though, Admiral Olson, I take 
a special pride in seeing you occupy this position as the first 
sailor to take over this very important segment of 
responsibility of our Armed Forces. I go back to Desert One in 
April 1980. I was then serving on this committee as the ranking 
member, and Senator Bill Cohen and myself and Senator Nunn 
literally took on the Pentagon and the establishment to create 
the structural and legislative framework to provide for the 
magnificent force we call the Special Operations Force today, 
which have earned, once we laid the cornerstone, the dedication 
and sacrifice of the men and women and their families. I want 
to come back to that momentarily. They have built this force 
into what it is, as have the succession of commanders that have 
preceded you.
    I'll never forget one time going down with General Bryan D. 
Brown to attend a funeral service where we lost quite a number 
of SOFs in a helicopter crash in an operational status in a 
combat zone. One of the widows of one of the lost Special 
Operations personnel addressed an audience in a building I 
estimate housed 400 or 500 with another 400 or 500 outside, 
watching on a TV screen.
    It was one of the most riveting and most magnificent 
statements I ever heard by an individual on the occasion of the 
loss of a loved one. She explained the dedication of the wives 
of SOFs, be they officers or enlisted. Of course, that's 
throughout our military services, but I always remember that.
    Also, Mr. Chairman, I want to recognize General Brown's 
service. I've had the privilege of working with him these many 
years and he has a little picture in his office of a skinny 
little second lieutenant operating a helicopter in Vietnam, 
where he flew many combat missions. He's of a generation of 
that war of which very few are left now, that has really proven 
you can come all the way up through the ranks and take on these 
major commands and finish it with great distinction.
    So my salute to General Brown and his family on the 
occasion of, I anticipate, your Senate confirmation.
    Thank you very much, Mr. Chairman.
    Senator Reed. Thank you very much, Senator Warner.
    As I've noted, Secretary Bodman is here. Mr. Secretary, if 
you want to make a comment.
    Senator Warner. Mr. D'Agostino, would you yield your seat 
for a moment.
    This a wonderful occasion for you to come up, Mr. 
Secretary. We're pleased.
    Secretary Bodman. I'm here really as a symbol of my support 
for Mr. D'Agostino and the fine job that I expect that he will 
do in the future.
    Senator Reed. Thank you.
    Senator Warner. Thank you very much for that.
    Senator Reed. Thank you very much, Mr. Secretary.
    Before we begin and take your opening statements, there are 
standard questions which I will pose to all of you. I will ask 
the question and then in turn from Mr. D'Agostino, Admiral 
Olson, and Mr. Vickers get a response.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Mr. D'Agostino?
    Mr. D'Agostino. Yes.
    Senator Reed. Admiral?
    Admiral Olson. Yes, sir.
    Senator Reed. Mr. Vickers?
    Mr. Vickers. Yes, sir.
    Senator Reed. Thank you.
    Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation 
process?
    Mr. D'Agostino. No, sir.
    Admiral Olson. No, sir.
    Mr. Vickers. No, sir.
    Senator Reed. Will you ensure your staff complies with 
deadlines established for requested communications, including 
requests for the record in hearings?
    Mr. D'Agostino. Yes, sir.
    Admiral Olson. Yes, sir, I will.
    Mr. Vickers. Yes, sir, I will.
    Senator Reed. Will you cooperate in providing witnesses and 
briefers in response to Congressional requests?
    Mr. D'Agostino. Yes, sir.
    Admiral Olson. Yes, sir.
    Mr. Vickers. Yes, sir.
    Senator Reed. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Mr. D'Agostino. Yes, they will.
    Admiral Olson. They will.
    Mr. Vickers. They will, sir.
    Senator Reed. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Mr. D'Agostino. I agree, sir.
    Admiral Olson. Yes, sir.
    Mr. Vickers. Yes, sir.
    Senator Reed. There are two questions reserved for serving 
military officers. Admiral Olson, I'll direct them to you. Do 
you agree to give your personal views when asked before this 
committee to do so, even if those views differ from the 
administration in power, Admiral?
    Admiral Olson. Yes, sir, I do.
    Senator Reed. Do you agree to provide documents, including 
copies of electronic forms of communication, in a timely manner 
when requested by a duly constituted committee or to consult 
with the committee regarding the basis for any good faith delay 
or denial in providing such documents?
    Admiral Olson. Yes, sir, I do.
    Senator Reed. Thank you very much.
    Gentlemen, I have been informed that the last question is 
for everyone. I need not repeat it. I think you understand the 
question, Mr. Vickers. Do you agree?
    Mr. Vickers. Yes, sir, I do.
    Senator Reed. Mr. D'Agostino?
    Mr. D'Agostino. I agree, sir. Yes, sir.
    Senator Reed. Now, Mr. Vickers, if you have an opening 
statement.

 STATEMENT OF MICHAEL G. VICKERS, TO BE ASSISTANT SECRETARY OF 
   DEFENSE FOR SPECIAL OPERATIONS AND LOW-INTENSITY CONFLICT

    Mr. Vickers. Thank you, Mr. Chairman. It is an honor to 
come before you today for this confirmation hearing. I am 
deeply honored by and grateful to President Bush for his trust 
and confidence in nominating me for Assistant Secretary of 
Defense for SO/LIC at this very difficult time in our Nation's 
history.
    I had the honor of serving with Secretary Robert Gates at 
the CIA during the 1980s. I am deeply honored and grateful to 
have been asked once again to serve under his leadership. I 
want to express my sincere appreciation to you, Senator Reed, 
and to you, Senator Warner, for your consideration of this 
nomination. If confirmed, I will consult with you often, seek 
your counsel, and take it seriously.
    I would be remiss if I did not thank my wife Melana and my 
daughters Alexandra, Natasha, and Sophia and my other daughters 
who couldn't be with us today, Oksana and Kalyna, for their 
love and support. I could not contemplate a return to 
government service without it.
    Our Nation and DOD face a number of extremely serious 
challenges, at the forefront of which are the wars in Iraq and 
Afghanistan, with other very serious challenges gathering on 
the horizon. If confirmed by the Senate, under the 
reorganization of the Office of the Under Secretary of Defense 
for Policy I would have responsibility, as you noted, Senator 
Reed, for oversight of the Department's core warfighting 
capabilities, from SOFs to general purpose forces to strategic 
forces. I regard this responsibility as a sacred trust. If I am 
confirmed, I will do my best to prove worthy of that trust.
    Thank you, Mr. Chairman. This concludes my opening remarks.
    Senator Reed. Thank you very much, Mr. Vickers.
    Admiral Olson?

 STATEMENT OF VADM ERIC T. OLSON, USN, FOR APPOINTMENT TO THE 
  GRADE OF ADMIRAL AND TO BE COMMANDER, UNITED STATES SPECIAL 
                       OPERATIONS COMMAND

    Admiral Olson. Mr. Chairman, Senator Warner, and Senator 
Inhofe, thank you for the opportunity to appear before you 
today. I'm deeply honored by my nomination to serve in this 
position. As Senator Warner mentioned, SOCOM was created by 
this body just over 20 years ago, and the wisdom included in 
the language that established the command has been proven many 
times in and between many conflicts since then.
    This Nation expects to have forces that can respond to the 
sound of guns with speed, skill, and discipline whenever and 
wherever they are needed. The Nation also expects to have 
forces that can operate with knowledge and wisdom well ahead of 
the sound of guns in order to prevent violence from erupting. 
The Nation expects to have forces that can silently emerge from 
darkness with precision and daring to conduct missions that are 
especially demanding and sensitive.
    If confirmed, I will train, organize, equip, deploy, and, 
when directed, employ this force in balance across the spectrum 
of traditional and irregular warfare missions. I will plan and 
lead DOD activities in the global war on terror as directed by 
the Secretary of Defense. I will also work to maintain balance 
in the lives of our people, providing the quality support that 
they and their families deserve.
    I've been privileged to serve in SOFs for nearly all of my 
34 years of commissioned service. I am awed by the dedication, 
the courage, and the sacrifice of these great service men and 
women, and I am humbled to be considered for assignment as 
their commander.
    Thank you, sir.
    Senator Reed. Thank you.
    Mr. D'Agostino?

 STATEMENT OF HON. THOMAS P. D'AGOSTINO TO BE UNDER SECRETARY 
 FOR NUCLEAR SECURITY, DEPARTMENT OF ENERGY, AND ADMINISTRATOR 
        OF THE NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Mr. D'Agostino. Mr. Chairman, Senator Warner, and members 
of the committee, I'm both humbled and honored to be the 
President's nominee for Under Secretary for Nuclear Security 
and Administrator of the NNSA. I appreciate the confidence 
placed in me by Secretary Bodman, who's taken time out of his 
very busy schedule to be here today. If confirmed, I'll work 
closely with Congress and the administration as we continue to 
assure the safety, security, and reliability of the nuclear 
weapons stockpile and to further our nonproliferation and naval 
reactors goals and objectives.
    I have a personal attachment to the NNSA and considerable 
affection for the people that make up the organization. I have 
worked with many of them over the years and have great respect 
for all the things that they've accomplished. If confirmed, I 
look forward to continuing to work with Congress on national 
security missions of the NNSA.
    I've been with the DOE's nuclear weapons program now for 
over 14 years and have witnessed remarkable changes. I'm 
particularly proud of the steps taken to fulfill the 
President's direction to reduce the stockpile to nearly one-
half by 2012. As a result of dramatic improvements in 
procedures, tools, and policies, we've also increased the rate 
of nuclear weapons dismantlement by 50 percent over last year's 
level and will continue at that highly sharper rate for the 
rest of the year. We're ensuring that these weapons will no 
longer be used again and thus demonstrating that the United 
States is serious about our nonproliferation leadership role in 
the global community.
    Increasing the dismantlement rate of excess warheads is 
also a key part of the NNSA's future plans to transform and 
reduce the nuclear weapons stockpile and develop the supporting 
infrastructure that is modern, smaller, more efficient, and 
more secure to meet the challenges of the 21st century.
    Moving forward to evaluate whether or not we should pursue 
a strategy of reliable replacements to our Cold War nuclear 
warheads is also pivotal to realizing this vision. Increased 
confidence in our stockpile from reliable replacement warheads 
(RRWs) may result in even greater dismantlement rates, sending 
a strong message to the rest of the world that we're taking 
meaningful steps to developing the right size nuclear weapons 
stockpile.
    Our continued investments in nuclear deterrent will also 
assure our allies and obviate any need for them to develop and 
field their own nuclear forces. Finally, the improved security 
features of the RRW will prevent unauthorized use should a 
warhead ever fall into the hands of terrorists.
    In the area of nonproliferation, NNSA now works with over 
100 international partners to secure and reduce the quantity of 
nuclear and radiological materials, bolster the border security 
overseas, and strengthen the international nonproliferation and 
export control regimes. We're conducting cutting edge research 
and development into nuclear detection technologies to provide 
the tools we need to detect and prevent proliferation.
    Meeting our commitments in the Bratislava Agreement to 
conclude security upgrade activities at Russian nuclear sites 
by the end of 2008 is also one of our highest priorities. As a 
result of our efforts to accelerate this work, we're well 
positioned to successfully reach this milestone on schedule.
    Service to the Nation is very important to me. I have over 
29 years of military service in the United States Navy and over 
17 years of civil service in the Department of Navy and in the 
DOE. As an officer in the Navy, I was selected by Admiral Hyman 
Rickover, and trained as a nuclear submarine officer, and in 
this capacity I managed technically complex, high hazard 
operations on board nuclear submarines. This training instilled 
in me a commitment to safety, quality, discipline, and 
integrity that are so important when dealing with nuclear 
operations.
    For all of my professional life, I've focused service in 
support of our Nation's security. I'm privileged to have been 
able to serve my country and am confident that my experience 
will serve me well, if confirmed.
    If confirmed, I'll bring integrity and perseverance to the 
administrator position and to the men and women of the NNSA who 
work so hard on the important task of preserving our Nation's 
security. With your approval, it would be my great privilege to 
lead NNSA as we meet our challenges to work towards a better 
future.
    Thank you for your consideration.
    Senator Reed. Thank you very much, Mr. D'Agostino.
    I would propose 8-minute rounds and I presume we'll have 
several rounds.
    Senator Warner. I'll yield my time to the colleague from 
Oklahoma.
    Senator Reed. Senator Inhofe.
    Senator Inhofe. Mr. Chairman, if I could. I'm ranking 
member of Environment and Public Works Committee. We're having 
a hearing that starts right now and I'm going to have to be 
there. I'd like to ask just a couple questions maybe for the 
record.
    Senator Reed. Yes, sir.
    Senator Inhofe. I appreciate it very much.
    First of all, Mr. Vickers. I've been very interested and 
somewhat instrumental in the 1206 and 1207 and, of course, 1208 
sections of the U.S. Code, as it refers to Special Operations, 
the train and equip funding. Section 1206 is about a $300 
million program that allows people to train and equip nations. 
Section 1207 is a lesser amount and that has to do with 
civilian activities. But section 1208 is only $25 million and 
that is there for Special Operations.
    I'd like to know your feelings about the adequacy of that 
account and how significant the section 1208 funds are and 
maybe get some comments from the other nominees, too.
    Mr. Vickers. Yes, sir. All of the accounts and authorities 
provided in them are very important. The sections 1206 and 1207 
authorities are primarily for stability and reconstruction 
operations so that we can move rather rapidly to train and 
equip foreign security forces; and the section 1208 authority 
is for dealing with irregular forces.
    During Operation Enduring Freedom when we went into 
Afghanistan, DOD did not have these authorities, which the CIA 
has historically had, and we were, therefore, at a 
disadvantage. Thanks to congressional action on this, DOD now 
has a very important capability, which in my personal opinion 
should be extended.
    Senator Inhofe. Is the section 1208 adequate, though? 
That's the question.
    Mr. Vickers. Sir, my understanding is SOCOM in the past few 
years has spent most of the funds, I believe about $15 million 
or so. As we move to give greater emphasis to an indirect 
approach for the war on terror and to a global unconventional 
warfare campaign, that level may need to be revisited.
    Senator Inhofe. That's my thinking here. Special Ops used 
to be rather small. Right now it's growing more rapidly than 
any other element out there.
    Do you agree with that, Admiral Olson?
    Admiral Olson. Sir, I can't say absolutely that they're 
growing more rapidly than any other, but we are certainly 
growing rapidly.
    Senator Inhofe. Why don't you do this. You look at the 
adequacy of the section 1208 and let us know if it looks like 
it might be a problem.
    [The information referred to follows:]

    The original $25 million amount for section 1208 authority was the 
result of an initial estimate made almost 4 years ago, based on early 
experiences in Afghanistan with the Northern Alliance and our sense of 
what future unconventional warfare requirements might look like. At 
that time, assumptions were that 1208 operations would be of relatively 
short duration. In fact, most 1208 operations cross fiscal years and 
require sustained or increased funding in the follow-on years. 
Consequently, at the beginning of each fiscal year, the amount of 
unobligated 1208 authority available to conduct new operations is less 
than $25 million.
    It is very important to extend the 1208 authority in fiscal year 
2008. There are operations planned in fiscal year 2008 and 
approximately half of the 1208 authority is projected to pay the costs 
of operations already approved by the Secretary of Defense. The current 
$25 million is adequate for fiscal year 2008. However, as Mr. Vickers 
noted during the hearing, the greater emphasis on the indirect approach 
in the global war on terror may require this amount be revisited.

    Senator Inhofe. Admiral Olson, we hear a lot about OPTEMPO, 
we hear about the Guard and Reserve and the problems that 
they're having right now. We don't hear that much about Special 
Operations Forces in terms of their recruiting, retention, 
morale, and the impact on those of OPTEMPO. Where are we on 
that now?
    Admiral Olson. Sir, generally speaking the OPTEMPO of SOFs 
is on par with the Army and the Marine Corps that we have heard 
so much about. We are programmed, if the budgets are approved, 
to grow about 13,000 people over the next 5 years. That's a 
rate at which we can absorb the growth. Our recruiting is 
matching that. Our pipeline training is matching that. Our 
retention is matching that. So we are on par to execute that 
growth.
    Senator Inhofe. Very good.
    Mr. D'Agostino, in your statement you discuss nuclear 
nonproliferation programs in the states of the former Soviet 
Union and identify North Korea as the greatest unmet 
nonproliferation problem. Chinese companies have been 
sanctioned for selling weapons technology to countries, 
including Iran. Is China an unmet nonproliferation problem?
    Mr. D'Agostino. In my view, at this point no, they are not. 
We're working with China on a number of activities. 
Particularly we like to engage them in bolstering what we call 
our second line of defense program, which is the put nuclear 
detection capabilities at borders, and they're working with us 
on that, as well as looking at warhead safety and security. 
There's a lot more that we can do with China and I would say 
we're in the early stages of engagement in that area.
    Since it's not an area that I deal with in my current job, 
it is something that I'll be looking at in particular as we 
move forward.
    Senator Inhofe. On the no nuclear testing program, for as 
long as they have had that I've been concerned whether or not 
we're actually keeping a credible nuclear deterrent. I'm sure 
that other members will be asking the same question. What is 
your feeling now?
    Mr. D'Agostino. Sir, one of my primary responsibilities is 
to ensure that we annually assess the stockpile using the tools 
that have been authorized and appropriated over the past number 
of years. We feel we have significant confidence in our 
warheads. That doesn't mean to say that we don't worry about 
it, because every year they do get 1 year older on average, and 
therefore, as we do know, materials change over time.
    However, the tools that we have right now have allowed us 
to actually address some problems that we wouldn't be able to 
address in the days when we had testing. So we have some new 
insights.
    Senator Inhofe. So you think that you have new tools now 
that you didn't have before that would give us some level of 
confidence that we have something that works?
    Mr. D'Agostino. Yes, sir. The tools we have now compared to 
the tools we had a decade ago are significantly different. 
Computing tools for modeling and simulation, experimental tools 
to extract a tremendous amount of data about how materials 
change over time, have literally increased by orders of 
magnitude.
    Challenges remain. We are in the final stages of bringing 
all of these tools on line and that will be completed when we 
get into experimentation on the National Ignition Facility. 
That doesn't mean to say we won't uncover a technical problem 
in the future, but I feel very comfortable now with where we 
are in our stockpile.
    Senator Inhofe. Good. Let me just echo what the chairman 
and Senator Warner said. I just think the world of all three of 
you and look forward to working with you in your new 
capacities.
    Mr. D'Agostino. Thank you, Senator.
    Senator Reed. Thank you very much, Senator Inhofe.
    Mr. Vickers, you come to this job with an extraordinary 
range of both operational and analytical experience in special 
operations. Yours will be a job that has the principal 
responsible duty for oversight of special operations. The 
reorganization is proposing to give you this breathtaking range 
of responsibilities, from strategic weapons systems to the 
Strategic Arms Reduction Treaty (START), to the RRW, to 
transformation issues, and to major program functions.
    Do you believe that it's within the letter and the intent 
of the law that this new responsibility--since the current law 
says it's the principal duty for oversight of special 
operations-low intensity conflict, do you see it as a conflict 
with title 10?
    Mr. Vickers. Sir, I agree that it is a very expanded 
portfolio in terms of capabilities of the Department. But in 
terms of span of control, counternarcotics and detainee affairs 
were moved out and strategic capabilities and transformation 
and with that oversight of conventional forces were moved in. I 
think that very much depends upon the background of the nominee 
as to which would pose the greater challenge.
    I believe section 138 of title 10 is explicitly clear on 
the duties of the Assistant Secretary of Defense for SO/LIC, 
which is the primary duty of that ASD will be oversight of 
SOFs, both policy and resources. I do believe that under the 
reorganization that law can be adhered to in both letter and 
spirit.
    Senator Reed. The more I hear about this, the more 
skeptical I become, frankly, because there is I think sort of 
more of a correlation between detainee operations and Special 
Operations, between counternarcotics and Special Operations. 
But you're going to be asked, potentially, to opine upon 
whether we'll have a replacement warhead, whether we'll enter 
into the START negotiations--a whole host of issues which are 
complex.
    It begs the question whether or not, even though you will 
try your best to be the principal or devote your time, but 
you'll be pulled in several diametrically opposing directions. 
I must say, given your experience in Special Operations, you're 
clearly prepared for the existing role of the SO/LIC. I don't 
know if anyone can fill the role that's been proposed by this 
reorganization.
    Do you have apprehension about your ability to weigh in 
effectively on issues like strategic programs, space warfare, 
missile defense, and at the same time devote yourself with 
great energy to what is the most critical issue we face while 
we're at war today, which is special operations against the 
global war on terrorism?
    Mr. Vickers. Sir, I believe the background that I have 
enables me to weigh in and to use this reorganization to 
accomplish very important things for this and future 
administrations. For the past 15 years, I have spent a large 
portion of my time focused on space operations, information 
operations, and how they might evolve in the future, 
transformation of strategic strike operations, and 
transformation of the broad portfolio of DOD, and have been a 
high-level advisor since 1997 to DOD on those issues.
    I realize this is a very broad portfolio, but I believe it 
will also strengthen SOFs by having, frankly, more clout in the 
Pentagon. I would like to note that the Under Secretary of 
Defense for Policy, who if I am confirmed would be my immediate 
supervisor, has responsibility for all those capabilities plus 
homeland defense plus global security affairs and regional and 
global defense policy. So if he can handle that span of 
control, I believe I can assist him in doing that, sir, and if 
confirmed I would certainly do my best to do so.
    Senator Reed. One of the presumptions we have is that he 
has all this control because he has good subordinates like 
yourself who are focused laser-like on Special Operations.
    Admiral Olson, you're sort of looking from SOCOM up to DOD. 
Do you have any concerns, not because of Mr. Vickers or anyone 
else's capability, but just the fact that there'll be so many 
different missions in that office, that you won't get the 
attention you need?
    Admiral Olson. Sir, if I'm confirmed as the Commander of 
SOCOM I would consider it essential that the Assistant 
Secretary continue to serve as a member of the board of 
directors of United States Special Operations. The voting 
members are only six and the Assistant Secretary obviously is a 
key vote.
    Second, I would consider it essential that careful and 
personal oversight of Major Force Program 11 funds be 
maintained at the Assistant Secretary level. I would be 
concerned about a dispersion of responsibilities regarding 
Special Operations across the Deputy and Assistant Secretaries 
of Defense. But in conversation with the office, we're assured 
that that won't happen, that the right level of attention will 
be paid to Special Operations issues.
    So at this point we're optimistic and looking forward to 
working with the new organization.
    Senator Reed. Thank you.
    Admiral Olson, there have been reports of detainee abuse by 
special operators before Abu Ghraib, which raises the question 
of essentially what are the rules of engagement or 
interrogation that our special operators apply? Can you give 
this committee assurances, as military officers and 
noncommissioned officers, that they operate within the very 
strict purview of the Geneva Convention?
    Admiral Olson. Yes, sir. SOFs adhere to the same policies, 
regulations, and laws as all the other forces operating in the 
theater. The policies are set by the commander, in Iraq and 
Afghanistan are set by the Commander of Central Command and 
adhere to the Detainee Treatment Act, and SOFs fall under the 
same provisions.
    Senator Reed. So you would claim no special exception given 
the nature of their operations? They would follow the same 
guidance as regular forces, conventional forces?
    Admiral Olson. Sir, there are no exceptions granted to SOFs 
regarding interrogations.
    Senator Reed. Mr. Vickers, your view?
    Mr. Vickers. I agree with Admiral Olson, sir.
    Senator Reed. Thank you.
    Mr. D'Agostino, let me ask a question about the stockpile 
stewardship program. It has been operating now for 14 years. 
What additional assets are planned for the program to enhance 
its capabilities?
    Mr. D'Agostino. Mr. Chairman, the focus over the next few 
years will be to fully realize the capabilities of the machines 
that are coming on line right now and will be over the next 
year and a half or so, particularly the Dual Axis Radiographic 
Hydrodynamic Test machine, which is at Los Alamos. That machine 
will allow us to take a look at imploding materials and see how 
they change over time and to use that data for our computing 
codes.
    We'll continue to need investments in our simulation and 
modeling program, as we put forth in our President's budget 
request. We'll continue to move forward on our National 
Ignition Facility and fully realize that. I feel pretty 
comfortable with that suite of tools. Then of course what it 
will really take is experiments working on those machines and 
extracting that data. That will keep us busy for a number of 
years to come in the near future.
    Senator Reed. Thank you.
    I have additional questions, but let me now yield and turn 
to Senator Warner.
    Senator Warner. Mr. Chairman, I'd like to return to your 
question regarding the detainees. I did not hear either of the 
witnesses--I think it was just that they used the name of the 
statute, but I'd like to have you reply about the Army Field 
Manual. That will be the guiding document for the actual hands-
on by the troops in the field; is that correct, Admiral Olson?
    Admiral Olson. That's correct, sir. It's Army Field Manual 
2-22.3. It is the operative manual and our forces follow it.
    Mr. Vickers. That is correct, sir.
    Senator Warner. I think it's extremely important that we 
have that in the record.
    I think you've covered, Mr. Chairman, the question of the 
reorganization of the Office of the Under Secretary of Defense 
for Policy and how that leaves your portfolio. But you're 
confident, Mr. Vickers, that at this point in time one man can 
handle the whole realm of responsibilities; is that correct?
    Mr. Vickers. I do believe that is correct, Senator Warner, 
and I believe that it is important to set priorities within 
these areas, particularly in the last year and a half of an 
administration. But I believe that important things can be done 
in each area, and I would be happy to discuss those other 
areas, some of which Senator Reed mentioned--RRW, missile 
defense, and transformation of conventional forces as well.
    Senator Warner. Again, your segment of overall DOD 
responsibility was pretty well carved out and created by 
Congress. I would like to have you provide for the record 
hopefully your commitment that you will come back to Congress, 
in due consultation with the Secretary of Defense, a 
magnificent man, that you will not only advise the Secretary, 
but also Congress, so that it can take any legislative action 
as necessary. Do we have that commitment from you?
    Mr. Vickers. You do, sir.
    Senator Warner. Good, all right.
    Mr. Chairman, I was handed a note by one of our able staff 
that our committee in the military construction commitment, 
which I believe you have a hand in, plans to include in the 
mark on Wednesday a cut to a SOCOM project. I'd like to get the 
Admiral's view about that project. It is the Naval Special 
Warfare Command Facility at Dam Neck, VA. That's curious; it's 
in my State. I can't imagine how that coincidence is coming 
about. [Laughter.]
    It's in the President's budget for $94.5 million, 
construction of a SEAL team operation facility. Could you tell 
us a little bit about that project, Admiral Olson?
    Admiral Olson. Yes, sir. Thank you, sir. One of our major 
units is stationed at Dam Neck in Virginia Beach, VA. That is a 
unit that is scheduled to grow in its operational capability by 
about 33 percent over the next 5 years. That is an essential 
facility. It is a $94 million facility because it supports both 
staff and operational aspects of what that unit does.
    Senator Warner. I thank you. I have a detailed letter here, 
which incidentally arrived on your desk this morning, Mr. 
Chairman. At your opportunity would you take a look at it and 
so advise me as to how you feel about that project?
    Senator Reed. I'd be delighted, Senator.
    Senator Warner. Thank you very much.
    Thank you, Admiral, for that little bit.
    Now to Mr. D'Agostino. I enjoyed very much our visit 
yesterday reminiscing about Admiral Rickover.
    Mr. D'Agostino. Yes, sir.
    Senator Warner. Indeed, I had and still will always have 
the highest regard for him. You're a survivor of that system.
    Mr. D'Agostino. Yes, sir.
    Senator Warner. As a matter of fact, he, in your own words, 
threw you physically out of his office twice, saying that he 
was doubtful that you were up to submarine standards. But 
somehow you managed to win his confidence and went on to have a 
very extraordinary career in the United States Navy in the 
submarine force, and now you take on this responsibility.
    Let me draw to your attention that in 2000, Congress 
created the NNSA as an outgrowth principally of concerns about 
the security of the nuclear weapons labs. NNSA used to have 
somewhat of an independence within the DOE.
    Are you cognizant of that background?
    Mr. D'Agostino. Yes, sir, I am.
    Senator Warner. You studied under your predecessor for some 
period of time, did you not?
    Mr. D'Agostino. Yes, sir, I did.
    Senator Warner. Did the concept of some sort of unwritten 
but nevertheless de facto independence work to your 
satisfaction?
    Mr. D'Agostino. Yes, sir. I think it has worked and I think 
it will continue to improve our relationships. The way I look 
at the relationship with the rest of the Department, we 
particularly rely on the office led by Glenn Podonsky, who 
provides an independent oversight element to our program and 
gives me direct input. I talk to Mr. Podonsky at least once a 
week, sometimes twice a week, as he has folks that are looking 
not only within the NNSA but across the rest of the Department. 
That independent look at the program, as well as my own 
security organization, allows me to provide and do that 
balancing and risk management that's so important.
    I do think one of the areas that I'll be spending some time 
on over the next 18 months or so, the acting Administrator 
right now, Bill Ostendorff, has worked up a set of special 
focus areas, and the area that Bill and I both believe needed 
additional attention, me in my responsibility as the Deputy 
Administrator for Defense Programs, is how we do oversight of 
security, how we do oversight of nuclear safety, and how we do 
oversight of cyber security.
    So our relationship with the Department will allow us an 
opportunity to really improve on that.
    Senator Warner. You're fortunate to have a Secretary at the 
head of your Department who understands this and has made it 
work since the day he took over this job. You're fortunate in 
that capacity. To have you here, Mr. Secretary, attending this 
morning is a special honor to the committee.
    I'd like to have, at this point in time, your own 
assessment of the security at the various laboratories. They're 
national assets, those labs, and this committee has taken a 
special interest in them through the years while the DOE and 
indeed the Committee on Energy in this Congress has sort of 
joint responsibility. We each year as a rule have the lab 
directors up to talk with them.
    Give us your current assessment of the security 
arrangements at the labs today and whether or not you feel in 
your tenure you have to take some initiatives to strengthen it.
    Mr. D'Agostino. Absolutely. Right now, I'm fairly 
comfortable with the physical security element of where we are 
with our laboratories, as well as our production sites. These 
organizations get a fairly rigorous review by the security 
organization within the NNSA, as well as Mr. Podonsky's 
organization. There are clearly areas that need improvement 
across the complex. We know what those areas are and we're 
going to be focusing on those particular areas, as I mentioned 
earlier.
    I think there is an area that the Secretary and I and Mr. 
Ostendorff will be spending more time on. I don't want to speak 
for the Secretary, but I do know that the area of cyber 
security is an area that concerns us greatly, because it's not 
just the materials that we worry about, it's the information 
about what to do with those materials that is something we need 
to protect almost with the same level of rigor and attention.
    Senator Warner. I want you to provide for the record 
further details. I have but a minute left for the last question 
on my first round to Mr. Vickers.
    [The information referred to follows:]

    What progress has NNSA made in improving physical security of the 
Nuclear Weapons Complex?
    One of the major challenges facing the National Nuclear Security 
Administration (NNSA) has been, and remains, ensuring nuclear weapons 
and special nuclear materials (SNM) in our care are well protected, 
while at the same time, accessible for use in meeting the critical work 
activities of our national security missions--maintaining a safe, 
reliable, and credible nuclear deterrent, supporting the Nation's 
nuclear nonproliferation efforts, and advancing energy security. I am 
pleased to report that tremendous progress has been made to improve the 
capability and readiness of our sites in meeting the post-September 11 
terrorism threat. Over the past several years, in response to the 
Department's 2003 Design Basis Threat (DBT) Policy, NNSA has taken 
significant and sustained actions to improve the physical security at 
each of the sites within the complex. Our upgrades have focused on 
hardening our facilities from outside attack, employing security 
technologies that provide us stronger defenses, and improving the 
survivability and lethality of the protective forces we rely on to 
defeat the terrorist threat. The net effect of the upgrades, which are 
outlined below, is a robust and well-defended security posture across 
the NNSA's diverse set of facilities and operations. I am particularly 
pleased to report that our success in meeting the 2003 DBT Policy has 
been independently confirmed by the Department's Inspector General and 
by staff from the Department of Energy (DOE) Office of Health, Safety, 
and Security. While I am pleased with the work that has been 
accomplished, there is more to do. The next challenge is to take this 
strong physical security foundation and begin to implement upgrades 
necessary to meet the requirements of the 2005 DBT Policy. We have 
committed to the Department that we will meet these new requirements by 
the end of fiscal year 2011.

                    NNSA PHYSICAL SECURITY UPGRADES

Upgrades Completed to Meet the 2003 Design Basis Threat Policy
    The aggressive action taken by the NNSA field staff, both Federal 
and contractor, has changed the face of security at each of the sites. 
Over the past 3 years, we have invested over $277 million in security 
upgrades at NNSA sites. Completed upgrades include:

        <bullet> Implemented a denial protection strategy designed to 
        ensure that adversaries are prevented from completing an on-
        site in-situ improvised nuclear device (IND). All of our 
        Category I SNM sites moved from a strategy of containment and 
        now have in place denial strategies that seek to interdict and 
        destroy an enemy attack before adversaries can gain access to a 
        nuclear weapon or complete the assembly of an on-site IND. 
        Recapture/recovery plans are also in place to ensure our 
        security forces do not allow an adversary to escape with SNM.
        <bullet> Provided the DOE security police officers with armored 
        vehicles and heavy caliber weapons that significantly increase 
        their survivability and lethality. Armor-penetrating ammunition 
        and ballistically protected fighting positions also contributed 
        to improving their effectiveness. The increased security police 
        officer survivability has made site defenses stronger, while 
        minimizing the need to hire more security officers to account 
        for the expected attrition that would be a natural result of 
        the increased adversary force. Greater firepower also enables 
        the protective forces to defeat the adversary before they can 
        accomplish their mission.
        <bullet> Improved training capabilities by expanding training 
        ranges and support facilities: developing additional tactical 
        training courses, hiring instructors, and beginning the shift 
        to the ``Elite Forces'' model. This initiative will transform 
        our protective forces into a tactically oriented force, well 
        trained in the small team and weapons tactics needed to fight 
        in the current environment.
        <bullet> Used highly effective low-tech measures to upgrade the 
        physical security features of our sites. We installed physical 
        barriers around key approaches to sites and critical facilities 
        to provide increased standoff distances and to delay vehicle 
        and personnel movement. The standoff barriers also serve to 
        mitigate the effects of a vehicle bomb attack against key 
        facilities.
        <bullet> Employed technology solutions as force multipliers to 
        improve site defenses, including the critical aspects of 
        detection, assessment, delay, and response. We now have 
        tactical control over wider areas surrounding our nuclear 
        materials storage and processing facilities.
        <bullet> Worked to aggressively reduce the footprint associated 
        with SNM storage and processing operations. We removed Category 
        I SNM from Technical Area at Los Alamos National Laboratory 
        (LANL), greatly improving the effectiveness of the security 
        mission at LANL. We made great strides in reducing the number 
        of SNM target locations at Y-12 and the ongoing construction of 
        the Highly Enriched Uranium Materials Facility (HEUMF) will 
        drive even further target area reductions.
Upgrades Planned to Meet the 2005 Design Basis Threat Policy
    The 2005 DBT Policy represents an increase in the terrorist 
adversary force of as much as 75 percent over the 2003 DBT levels. 
While this is a large increase in threat capability, the 2003 DBT 
upgrades outlined above have greatly improved the defenses at our NNSA 
nuclear facilities. From this strong foundation, NNSA plans to invest 
in physical security upgrades that will keep our sites among the best-
defended and most secure facilities in the world.

        <bullet> Construction of high security facilities, such as 
        HEUMF at Y-12 and the Nuclear Materials Safeguards and Security 
        Upgrades Project at LANL.
        <bullet> Implementation of Complex 2030 as the long-term 
        configuration for a modernized Nuclear Weapons Complex. Complex 
        2030 to continue storage and processing consolidation efforts, 
        while also pursuing purpose-built facilities with built-in high 
        security features.
        <bullet> Continued SNM consolidation, particularly the 
        continuation of efforts at Y-12 to reduce the number of SNM 
        targets and elimination of Category I/II SNM from Sandia 
        National Laboratories by the end of fiscal year 2008.
        <bullet> Facility and target location hardening through 
        installation of standoff barriers and other physical upgrades.
        <bullet> Additional utilization of technology to augment the 
        detection, delay, and attrition of attacking forces.

                <bullet> Achieve detection further from our traditional 
                security boundaries.
                <bullet> Channel the adversary to pre-determined choke 
                points.
                <bullet> Mitigate the effects of vehicle borne 
                improvised explosive devices.
                <bullet> Engage the threat at longer distances and with 
                greater efficiency.
                <bullet> Increase the survivability of site protective 
                forces.
                <bullet> Fail-safe lethal denial systems.
                <bullet> Compartmentalization of vital planning 
                information.
                <bullet> Enhance command, control, and communication.
                <bullet> Enhance the tactical response capabilities of 
                the protective force.

        <bullet> Where necessary, hire additional protective forces to 
        counter the increased adversary force sizes.

    Senator Warner. I don't know whether you had the 
opportunity, Mr. Vickers, to read in the New York Times today 
an article by Michael Gordon. Mr. Gordon was accompanying 
Admiral William Fallon, the Central Command Commander, on a 
visit to Iraq. All too often we focus our attention on General 
David Petraeus. In no way do I suggest anything but the highest 
regard for the General, but this Admiral is the top boss in 
that region.
    I presume in consultation with our President he made this 
special trip down to meet with Prime Minister Maliki to, as 
described by this article, realistically assess the situation 
as of today and to remind Prime Minister Maliki that Congress 
just a few weeks ago enacted and the President signed into law 
a requirement that the President report to Congress on July 15 
with regard to the situation in that AOR, specifically Iraq.
    Of course, integral to that report will be the President's 
assessment with regard to his January 10 surge situation. Now, 
as I and others look at the surge, it is too early to say 
exactly the measure of success, but in terms of the performance 
of the men and women of the military, I think the surge has 
demonstrated absolutely superb dedication and sacrifice on 
their part. There's no doubt about that.
    But the underlying purpose for the surge was to provide a 
security situation in the capital of Iraq such that the 
government could begin, with greater vigor, strength and 
conviction, exercise the reins of sovereignty.
    Now, I want to make a careful separation. The Armed Forces 
are doing their job, but only a third of Baghdad has really 
been subjected to the January 10 doctrine of the President. 
Currently, the military is proceeding to do the balance as 
additional troops have been added. But the thing about it is 
the military is doing its job; the missing element is that the 
government is not taking advantage of such increased security 
as brought about by the surge to date and it's failing, in my 
judgment, to exercise the degree of sovereignty necessary to 
begin to pull Iraq out of this abyss it's sinking into.
    This is set forth very clearly in this article. I'm going 
to ask that part of the article be placed in today's record if 
that's possible, Mr. Chairman.
    Senator Reed. Without objection.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Warner. Did you have an opportunity to read the 
article?
    Mr. Vickers. I did, sir, and I concur with your assessment.
    Senator Warner. Could you advise the committee, drawing on 
your many years of experience in dealing with that region and 
understanding of the culture and the nature of the people of 
Iraq? It's rather unique. What do you portend for the future? 
Is there a likelihood that the people are going to come to the 
realization that we are there making these enormous sacrifices 
for their benefit?
    Mr. Vickers. We certainly hope so, Senator Warner. As you 
pointed out, we are making enormous sacrifices to give them the 
opportunity to do just that. But ultimately it must be the 
Iraqis who decide what the future of Iraq will be. One of the 
worrisome signs right now, besides the lack of progress on the 
essential political front, is that sectarian identities are 
hardening and have continued to harden, and therefore the link 
between military operations and political outcome is not having 
the full effect at this point in time that we would all hope 
for.
    Senator Warner. Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Warner.
    Senator Martinez.
    Senator Martinez. Thank you, Mr. Chairman, very much.
    I wanted to first of all commend all of you gentlemen for 
your willingness to serve our country and thank you for doing 
so. I look forward to your confirmation.
    I am delighted, Admiral, that we'll be keeping you in 
Florida. As I told you when we had an opportunity to visit, 
we're delighted that you're at SOCOM. We are so pleased that 
you're housed at MacDill Air Force Base, where we hope that if 
at any time we can be of assistance to you in making sure that 
the State is being as hospitable as it can be that you would 
let us know. We're very proud of our facilities there and happy 
to be working with you.
    My questions to you, Admiral, would be in the vein of how 
do we help you make things better for SOCOM? I know that we're 
facing a time in this situation that we are in the world where 
increasing demands are being placed on your forces. My question 
to you is how are you transforming and utilizing the resources 
that you have to ensure that there is a SOCOM that is fully 
capable to meet the asymmetric or irregular warfare that we're 
in today?
    Admiral Olson. Thank you, Senator Martinez. We are growing 
significantly. We are growing a little bit over 13,000 people 
in our force over the next 5 years. Continued support for the 
budget request is the most helpful thing that this body can 
provide SOCOM. We are programmed to grow at about the rate we 
can absorb the growth. We are on track to do that. But it will 
take continued careful monitorship and careful management of 
our growth.
    We are continuing to assess the very careful balance that 
has to be sustained between direct and indirect actions in this 
new world in which we live. We understand well that it is the 
indirect actions that will be decisive, but the direct actions 
are very important in order to enable the indirect actions to 
have time to take their decisive effect. So continued support 
for all of our components who are engaged in both direct and 
indirect activities and support for our major platforms, 
equipment items, to enable them to do the extremely demanding 
things that we ask them to do is how this body can best serve 
SOCOM.
    Senator Martinez. On the issue of the budget, is the 
President's budget request adequate in your opinion to meet 
your needs?
    Admiral Olson. Yes, sir, it is.
    Senator Martinez. We're looking at equipment as well as 
manpower, and I wanted to ask a question on each of those 
things. On the equipment front, I know that fixed wing aircraft 
has been something that you have needed. Mr. Vickers, please 
feel free to comment if you would like. Where are we in terms 
of meeting your needs for fixed wing aircraft? Explain to the 
committee, if you would, why you have such a need and what, if 
anything, we should be doing to help you?
    Admiral Olson. Thank you, sir. The primary fixed wing 
aircraft in Special Operations' inventory consist of several 
variants of the C-130 Hercules aircraft, an old design that's 
been upgraded over the years. But we are flying some that are 
quite old, and a modernization program, a recapitalization 
program, for our older model C-130s is essential. We are 
working very closely with the Air Force to enable that.
    The Air Force provides our fixed wing platforms and then we 
invest our MFP-11 dollars to modify them to accomplish their 
Special Operations-peculiar tasks. So this is a very carefully 
negotiated acquisition process with the Air Force in fixed wing 
aircraft, and with each of the Services, for those platforms 
that are in common service within the Services, but for which 
we have a Special Operations-peculiar modification requirement.
    We have an immediate requirement for 37 modernized 
aircraft. In working with the Air Force, we have in our budget 
request enough funds to accommodate 20 of those across the 
future years development plan and to deliver 12 within that 
plan. Ideally there would be more rapid growth, but that is a 
satisfactory growth rate for us.
    Senator Martinez. In terms of manpower needs, one of the 
things that I know you need is language and cultural training, 
as well as simply just the manpower needs. In other words, is 
recruitment up to speed? Is it what you want it to be? Are we 
maintaining the level of folks coming into the force that you 
need for this growth? Can you touch on the issue of language 
and cultural training?
    Admiral Olson. Yes, sir. Our manpower is a combination of 
our recruitment efforts, our pipeline training efforts, and our 
retention efforts. All three of those are on track in order to 
accomplish the growth that we have requested and which has been 
programmed for us should the budget be approved.
    We have made significant changes in our schoolhouse 
infrastructures in order to expand the pipeline opportunities. 
In some of our schoolhouses we have doubled and almost tripled 
our output of SOFs over the last couple of years. This body has 
supported retention benefits that have had a great deal of 
success in retaining our most senior and experienced people to 
stay beyond the point at which they may have retired, to extend 
them another 5 or 6 years of service, so that we are growing 
the force rapidly without paying too high a price in terms of 
making the force more youthful or less mature in its experience 
level by retaining these long-serving members of our force.
    All that is on track, sir, and I'm very optimistic that we 
will meet our growth goals.
    Senator Martinez. Thank you, sir.
    I'm finished, Mr. Chairman. Thank you.
    Senator Reed. Thank you, Senator Martinez.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Welcome to the process, all of you. I'd like to say first 
of all to the presiding Senator that he and I both have had the 
benefit of military service and then transitioning into 
civilian policy. I think that's a tremendous benefit. I was 
gratified, looking in the bios of the individuals here, that 
all of them have spent time in the military, understanding all 
the dimensions of that before moving into the civilian side. 
I'd like to say that I think that's a great thing when we're 
looking at the types of jobs that you will be doing.
    I have had the opportunity to speak with Admiral Olson on 
more than one occasion when he was testifying. I also enjoyed 
our visit yesterday. I look forward to visiting with the other 
two of you at some point. In the mean time, I'll be looking at 
your materials here.
    I'd like to congratulate Admiral Olson on becoming the 
first four-star Special Operations Commander from the Navy 
side. It's a great historical achievement.
    I have one question that I would address to the Admiral, 
also to Mr. Vickers, and it goes to an area of concern that 
we've been seeing a lot, expressed a lot in the media, and also 
from people who have a good deal of experience over in Iraq and 
Afghanistan. That is the seam that is sort of blurring between 
what our Special Operations people are doing and what 
activities are being contracted out to private contractors, 
such as Blackwater, Triple Canopy, and those sorts of 
companies.
    Part of this concern is operational, but also a part of it 
is jurisdictional in terms of who has responsibility for 
potential misconduct and those sorts of things. I'd like to 
hear both of your perspectives on this.
    Admiral Olson. Thank you, Senator Webb. I'll go first. 
United States SOCOM employs a number of contractors in Iraq and 
Afghanistan, but all of them are employed in providing 
services. They are helping us repair small arms, they're 
helping with aircraft maintenance, they are helping with our 
supply maintenance and those sorts of issues. We do not have 
any contractors who are employed in any operational roles, sir.
    Senator Webb. Do you work in conjunction with contractors 
who are in operational roles?
    Admiral Olson. Sir, I haven't been to the theater recently, 
so I can't answer that with certainty. If confirmed, I will 
certainly look into that. We have an informal relationship with 
many of those contractors because we know who they are, having 
been a supplier of many of the people who they hire. But in 
terms of a formal working relationship with contractors in the 
theater in an operational capacity, sir, I would take that as a 
priority if confirmed and study it.
    Senator Webb. I think it's a serious problem in a lot of 
different ways. One of them being how the civilian societies 
that we're working in view Americans. Over and over again I see 
these stories of misconduct, and I'm not alleging widespread 
misconduct, among these private contractors. But there are 
incidents and if you're on the receiving end sometimes it's 
difficult to see whether that person was actually an American 
military person or in many cases not even an American, but a 
foreigner using firepower without proper discretion, et cetera, 
et cetera.
    I would be curious to see in what areas there are 
interactions and how that's worked out.
    Mr. Vickers?
    Mr. Vickers. I would underscore, sir, what Admiral Olson 
said and just add that this is not an area that I have studied 
in great depth, but what I have looked at, the American 
military relies very heavily on contractors for all sorts of 
things, logistics support and others, and there has been some 
migration into some operational tasks, principally protective 
security details that have been outsourced, which then carries 
a whole range of other implications.
    The quality of private contractors varies substantially. 
Some are really first-rate and others less so as we move into 
this new world. But I firmly believe that, while contractors 
have a very useful role to play, it must be a confined role to 
avoid the confusion that you mentioned in your remarks, sir.
    Senator Webb. We're seeing a continual blurring of the 
lines of an expansion of functions. We just voted out a bill in 
this committee that arguably would put civilian contractors 
under the Uniform Code of Military Justice if they are in an 
operational environment. There's two strong concerns about that 
as it plays out in reality, if it were to play out in reality.
    The first is how do you really do that? Having sat on a few 
courtmartials in my life, how do you convene a courtmartial for 
a civilian with the sanctions that are in the Uniform Code of 
Military Justice? You can't give them a bad conduct discharge. 
What are they accepting in that scenario?
    The other thing is, what is the perception about these 
people who are wearing military uniforms, carrying arms, not 
really in the military, but they're far enough into the 
military that they're actually under the Uniform Code of 
Military Justice? This is a situation I don't think we have 
ever been in before. Part of it's driven by end strength 
concerns and that sort of thing. But it's something that, 
particularly in your area of responsibility, I think bears very 
close watching.
    I wish you the best and I'm happy to receive from all three 
of you any communications if you have concerns where you think 
we need to be taking a harder look at things.
    Mr. Vickers. Thank you, sir.
    Senator Webb. Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Webb.
    We will have a second round.
    Mr. D'Agostino, without overly simplifying your 
responsibilities, two major issues are the life extension 
program to ensure the reliability of the stockpile and 
consideration of a new RRW.
    Mr. D'Agostino. That's right, sir.
    Senator Reed. Lurking in all those issues is this notion 
also of testing, to try to, if at all possible, definitely to 
avoid testing. So it raises the question, at least in my mind, 
if the life extension program can be maintained adequately and 
we can ensure the reliability of the existing weapons, what is 
the urgency for a RRW?
    Mr. D'Agostino. I think the urgency is a matter of urgency 
in being able to look into whether a RRW strategy is an 
appropriate strategy to proceed forward. What we've learned 
over the last few years, and particularly most recently in our 
life extension, which in a sense is a special type of a life 
extension--it's a life extension that replaces components 
exactly the same way they were manufactured, in the exact same 
fashion they were manufactured 30, 40, 50 years ago, and 
designed 30, 40, 50 years ago.
    What we've learned within the life extension program is 
this is very expensive. It's very difficult to do technically 
because in many cases we're bringing on manufacturing processes 
that have been dormant for over 2 decades. In many cases these 
are manufacturing processes, because we want to replicate them 
exactly the way they've been done in the past, that don't have 
what I would call the respect for the environment and worker 
safety that we've learned over the last couple of decades in 
being able to build things in a much smaller, more modern way, 
with less impact.
    So this has given us an opportunity to look at components, 
and essentially RRW is a life extension because it's to replace 
a warhead that has the same form, fit, and function. It's 
carried on the exact same delivery platform. The only 
difference is it is a different design and the design is going 
to emphasize safety, using an insensitive high explosive 
instead of conventional high explosives. It's a design that 
will emphasize security. It will allow us to introduce high 
technology security into a warhead. Those are technologies that 
didn't exist 20, 30, 40 years ago when these systems were 
designed and we are in a different security environment right 
now than we were 3 or 4 decades ago.
    It's going to allow us to introduce what we call 
performance margin, which is another way of saying increase the 
reliability of the components themselves to ensure that we 
don't need to test that nuclear explosive package in the case 
of materials aging questions as they come up.
    The stockpile stewardship program has given us an 
opportunity to study these, our existing Cold War stockpile, in 
a way that says, does it make sense to introduce more security 
into a warhead? I think the answer is yes. Does it make sense 
to add additional safety into a warhead? I think the answer is 
yes. So we take a look at that, and that's why we would like to 
proceed forward, spend some money doing, not actually building 
a warhead in the next year or 2, but actually doing the cost, 
scope, and schedule studies necessary to determine whether it's 
a good strategy or not.
    Senator Reed. With respect to testing, if you came to the 
conclusion that you could not produce this RRW without testing, 
your recommendation would be not to produce it?
    Mr. D'Agostino. That would be my recommendation, sir. If 
confirmed, I would operate within a group called the Nuclear 
Weapons Council, and that's how I'd like to move forward.
    Senator Reed. Thank you.
    Admiral Olson, in your written testimony you said that the 
biggest challenges facing you would include management of 
Special Operations personnel and an unclear definition 
authority that makes it hard for SOCOM to plan and synchronize 
the war against terrorists. Can you elaborate on those two 
concerns?
    Admiral Olson. Yes, sir. In terms of the authorities for 
management of the people, the Commander of SOCOM, in the 
language of title 10, is held responsible for the combat 
readiness of SOF, but he does not have full authority to manage 
how that force is promoted, how they are schooled, or how they 
are paid. So we have disparity across our force with the 
different Service components in terms of pay scales and 
promotion rates.
    The language of the law says that the commander is 
responsible for monitoring the management of Special Operations 
personnel, but he has limited authority to actually execute 
management of personnel. So it would bear careful study and 
careful consideration and, if confirmed, I certainly would not 
want to replace the Service responsibilities with respect to 
personnel management, but I would seek a way by which the 
United States SOCOM could better influence the management of 
Special Operations personnel to achieve greater equity across 
the force.
    In terms of the second point, the Commander of SOCOM is 
charged by the Secretary of Defense and by the President in the 
Unified Command Plan as the lead combatant commander for 
planning and synchronizing DOD activities in the global war on 
terror. We are in a process of coordinating closely with the 
Joint Staff, with the Office of the Secretary of Defense, with 
the other combatant commanders around the globe, on how 
actually to conduct the activities associated with those 
responsibilities.
    This is a challenge, the solution for which resides within 
DOD. It is a new task, a new challenge for SOCOM, one that we 
are still growing into, but I don't see any obstacles that we 
can't overcome. It's just a matter of taking the right actions 
in order to ensure that we are able to meet the expectations of 
the Secretary of Defense and the President.
    Senator Reed. Thank you, Admiral.
    Mr. Vickers, I sound like a broken record, but I am still 
highly skeptical of your newly expanded version of your job. I 
would presume that in this new version of the SO/LIC 
responsibilities you would have to coordinate with Air Force 
Space Command. Is that something you anticipate doing?
    Mr. Vickers. As a component command of Strategic Command, 
yes, sir, much as with the Service Special Operations Commands. 
But the principal relationship would be with the Commander of 
Strategic Command.
    Senator Reed. Again, I am skeptical because our assumption, 
at least my simple assumption, was your principal combatant 
commander that you talk to would be Admiral Olson and he'd be 
the one and only. I don't want to wax poetic here, but you're 
going to have a relationship now with Strategic Command. 
General Henry Obering, head of the National Missile Defense 
Agency, I assume you'll now have to establish some type of 
working relationship there. Is that your view?
    Mr. Vickers. Yes, sir, although the Deputy Assistant 
Secretary of Defense for Strategic Capabilities and the Under 
Secretary of Defense for Policy are right now heavily engaged 
in missile defense negotiations and missile defense policy, and 
so I believe, if confirmed, I would have some relief in the 
missile defense area and my role would be more of a supporting 
one, because the missile defense negotiations are very intense 
right now and, given the both letter and spirit of section 138 
of title 10, one has to set priorities.
    Senator Reed. I could go down a list of other major 
responsibilities you'll have. I see you putting yourself or 
volunteering to be put in perhaps an impossible situation where 
you can't serve all these different demands. To me, the clear 
intent of Congress was to make it clear that your principal--
perhaps we should have said sole--responsibility would be for 
the Special Operations-Low-Intensity Conflict.
    Mr. Vickers. If I may, Senator, since Congress established 
the ASD SO/LIC, various functions have moved in and out of 
there, some less demanding, some more demanding: Western 
hemisphere, regional policy toward South America, 
counternarcotics, detainees, humanitarian assistance, and de-
mining. The difficulty of those has risen over time. Again, I 
think it somewhat depends on the qualifications and background 
of the nominee.
    As I think Senator Warner pointed out, this reorganization 
is a work in progress. Future administrations may choose, as 
prior administrations have, to reorganize differently. But I 
think there are some synergies that can be had at a high level 
from having some oversight of other combatant commanders.
    For example, SOCOM and Joint Forces Command (JFCOM) now 
share responsibility for civil affairs and psychological 
operations oversight, SOCOM for overall proponency and support 
of SOF, JFCOM for the conventional forces. Both Strategic 
Command and SOCOM have large information operations missions. 
So I believe that some synergies can be achieved by working 
with both commanders, much as, if confirmed, my superiors in 
DOD do as well.
    Senator Reed. Thank you, Mr. Vickers.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman. Let me express my 
appreciation to all of you gentlemen for your willingness to 
serve. We look forward to getting you through this process and 
confirmed. Admiral Olson, congratulations on being the first 
Navy officer to serve at SOCOM.
    I do have a question regarding the global war on terror, 
which we all realize I think requires a different strategy for 
countering the enemy than what was required in previous wars, 
and SOCOM plays an integral role in that, and the need to 
attack political, economic, social causes in conjunction with 
the military effort that is ongoing. For that to happen, I 
think there has to be a close relationship between SOCOM and 
other government agencies that are essential for 
counterterrorism and to conduct ongoing operations in Iraq, 
Afghanistan, and other areas.
    The global war on terror is not limited to the military and 
does require actions by other government agencies. I guess what 
I'd like to know is if you could discuss a little bit about how 
you might expand the effort to synchronize with other 
government agencies and departments with respect to fighting 
the war on terror.
    Admiral Olson. Thank you, Senator Thune. That's a very good 
question. I think you've hit at the heart of something that's 
very important to ultimate success in Iraq and Afghanistan. The 
United States SOCOM does and will continue to coordinate very 
closely with other agencies of government. We understand that 
military actions alone will not lead to success, that it needs 
to be a team effort. We are in the early stages of implementing 
what we have defined as an interagency partnership plan which 
will place over 100 liaison officers from SOCOM in other 
agencies, primarily in the Washington area.
    At the same time, we wake up every day in our headquarters 
in Tampa with over 100 liaison officers from other agencies 
represented on our compound at every level, attending the 
morning meetings at a senior level and giving their personal 
and their organizations' input in terms of advice to the 
commander on the way ahead.
    So we do have access to other agencies' ways of thinking. 
We have access to some of their databases. We have access to 
some of their plans and intent. All of this is very helpful in 
enabling SOCOM to perform its duties as the lead combatant 
command for planning and synchronizing the global war on 
terror.
    Senator Thune. I'd like to ask Mr. Vickers to comment on 
that as well. You're a former CIA officer and Green Beret. How 
would you expand interagency activities and synchronize efforts 
with other government agencies and departments, particularly 
CIA and State?
    Mr. Vickers. Sir, I think the relationship between SOFs and 
the CIA is a particularly important one for the global war on 
terror. It is certainly no accident since the terrorist attacks 
of September 11, 2001, that the two organizations that have 
probably grown substantially, if not the most, as Admiral Olson 
has said, are the CIA and our SOFs.
    Both of course are having challenges managing that growth, 
but that growth is essential to a favorable outcome in this 
war. I believe there are things we can do to build that 
relationship further, to expand it to a larger portion of the 
SOF force than has been done before, and to synchronize our 
efforts better. We synchronize efforts from the national 
implementation plan of the National Counterterrorism Center, 
down through Admiral Olson as the lead combatant commander for 
the war on terror, and then down to our commanders in the 
field.
    I believe we also need to make improvements at the sub-
region level--where we have interagency joint task forces, for 
example, in the Horn of Africa, offering a model that can be 
built upon--and at the country-team level. Terrorism occurs 
globally, it occurs sub-regionally, and it occurs within 
countries, and we need to adapt our institutions to make that 
work.
    In stability and reconstruction operations, we need to 
build capabilities in other parts of the Department, like the 
Department of State, and if confirmed I would work very hard on 
doing that as well, sir.
    Senator Thune. I appreciate that and would encourage those 
efforts to continue. My impression, having been to Iraq several 
times and Afghanistan, is that one of the components that's 
been missing, I think, in our overall efforts has been some of 
the ``soft power'' that we can bring. I even look at 
agricultural efforts. I come from an agricultural State and I 
look at the types of things that they could raise and grow in 
Afghanistan besides poppies and think that there is a real 
missed opportunity there.
    In asking questions about what sort of involvement we have 
from our U.S. Department of Agriculture in Afghanistan, I was 
somewhat surprised that there wasn't more of an intensive 
effort being made to educate people there about the types of 
things that they could do for their economy and really create 
some economic opportunity for the agricultural sector outside 
of the things that they're growing today, which are a 
detriment, I think, to the things that they need as a country 
to move forward and things obviously we'd like to see 
accomplished there.
    Mr. Vickers, I wanted to ask you a question about the 
Congressional Budget Office (CBO). CBO has recommended 
terminating the Airborne Laser (ABL) as a viable budget option. 
My question is do you support that recommendation and if not 
why do you believe that the ABL's continued development is 
important to our missile defense strategy and how will it 
enhance our capabilities?
    Mr. Vickers. Sir, I do not support the CBO recommendation. 
I think, while the jury is still out on ABL, it is very 
important to progress through 2009, when we are scheduled to 
have our first lethal shot test. The ABL, which has been under 
development for some time, will provide an important boost 
phase intercept capability that currently we lack in our other 
portions of our layered missile defenses, and it will provide, 
assuming it's operationally effective, a magazine load of 40 
shots, for approximately $10,000 a shot. By comparison, our 
lowest theater air defense rounds, the PAC-3, are about $3 
million a shot. So it would be very effective potentially--
providing speed of light response. As with most new weapons, 
once you develop them you find other uses for them that were 
not envisioned at the time. I think we ought to continue with 
research and development and go forward at least to 2009 so we 
can see just how well it works.
    Senator Thune. I appreciate that.
    Thank you all very much for your answers.
    Mr. Chairman, thank you and I look forward to seeing that 
this process moves forward and we can get all these gentlemen 
confirmed. Thank you.
    Senator Reed. Thank you, Senator Thune.
    Senator Warner?
    Senator Warner. Thank you, Mr. Chairman.
    I'd like to address this question jointly to Mr. Vickers 
and Admiral Olson. I draw to your attention a New York Times 
article this Monday, June 11, or at least it came into my 
possession today, written by John Burns out of Iraq, who's a 
very competent reporter. It's a marvel how he's lasted.
    The title is ``U.S. Arming Sunnis in Iraq to Battle Old al 
Qaeda Allies.'' Now, given that the SOFs have had the primary 
mission of dealing with al Qaeda, I think it's important that 
we take a look at this thing. This is a very dramatic turn of 
events, at least in the judgment of this humble Senator, where 
we're going to now arm one side of this sectarian violence, 
i.e. Sunni, because there has been some progress made in the al 
Anbar Province, that the Sunnis are coming to the realization 
that they should be fighting al Qaeda as strongly as the 
coalition forces and principally the U.S. are fighting al 
Qaeda.
    But as I've done my studies of this situation over now 5 
years, I think some of these citizens of Iraq will turn on a 
dime and 1 day they're your friend and the next day they're 
your enemy. I don't know the extent to which either of you 
looked at this, but I'm going to encourage you to do so and 
come back and provide for the record your own views on this 
policy.
    To the best of my understanding, Mr. Chairman--I consulted 
with our senior staff--no one up here knew anything about this 
dramatic change of policy before it was published here in the 
press. It seems to me we ought to have some sort of a test case 
before we in a widespread manner begin to provide arms to 
certain segments of the Sunni population to purportedly fight 
al Qaeda.
    I'm asking you to provide it for the record.
    [The information referred to follows:]

    Mr. Vickers. Enlisting Sunni tribes in the fight against al Qaeda 
in Iraq (AQI) represents a major strategic success. Defeating AQI is a 
principal U.S. war aim, and the Sunni population and its tribal 
militias are the principal instruments through which the conflict must 
and will be fought. Enlisting former Sunni insurgents in the fight 
against AQI reduces, though by no means does it eliminate, risk to U.S. 
forces in the near-term, and it better positions the U.S. to secure its 
interests in Iraq over the longer-term. I support the limited policy of 
providing support to former Sunni insurgents in the fight against AQI. 
It would be preferable, in an ideal world, to not have armed militias, 
but not having them could result in much less effective operations 
against AQI in present-day Iraq. To be sure, providing support to 
former Sunni insurgents is not without risk. There is always the risk 
that former Sunni insurgents could use their weapons to attack U.S. 
forces, or they could provide weapons to AQI. I believe these risks are 
manageable, and that various measures--the provision of advisors and 
tracking of weapons--can be adopted to ensure compliance. I do not 
believe, moreover, that the policy of providing limited small arms 
support to Sunni tribal militias who join the fight against AQI will 
have a material adverse impact on the future stability of Iraq, or on 
strategic balances among sectarian groups in the event of a full-blown 
civil war in Iraq. Providing limited support to Sunni tribesmen and 
former Sunni insurgents can, however, tip the strategic balance against 
AQI, and secure the necessary cooperation of the Sunni population. Over 
time, it is imperative that Sunni militias be incorporated into legally 
constituted security forces.

    Senator Warner. I just wondered at this point in time to 
what extent either of you have had an opportunity to address 
this. First, Admiral Olson, from an operational standpoint, 
were you aware of this policy?
    Admiral Olson. No, sir, I was not aware of it as a stated 
policy.
    Senator Warner. Any consultation to your knowledge between 
the field commanders in Iraq and the SOCOM headquarters?
    Admiral Olson. Sir, not that I'm aware of.
    Senator Warner. Mr. Vickers?
    Mr. Vickers. Sir, I was not involved in the policy, but I 
would like to say that you're absolutely correct that the 
turnaround with the Sunnis represents one of the most dramatic 
changes in Iraq in the last 12 months.
    Senator Warner. A positive one.
    Mr. Vickers. Absolutely, sir. As you may recall, last 
summer everyone was writing off al Anbar as lost. All the 
intelligence assessments reflected that.
    Senator Warner. If I could inject here, Senator Levin, now 
the chairman of the committee--I was then chairman--and I 
visited that province. When was it, August, September? We were 
told by the intelligence officers that things were very grim 
out there, and then suddenly a turnaround.
    I think our field commanders, particularly the Marine 
Corps, are entitled to credit for that. But this is a very 
significant policy statement here. It looks as if it's going to 
try to export the al Anbar model to other areas of Iraq.
    It's very hard for us here at home to fully appreciate the 
situation over there, even though we try to visit as often as 
we can. I have confidence in General Petraeus and his field 
commanders. But I see here a very dangerous situation, whereby 
if arms that we provide to certain segments of the Sunni 
population somehow slip through their hands and get into the 
hands of others and are then turned against our forces.
    The American public is stressed. Talk about the military 
being stressed. The American public is stressed. To have their 
loved ones killed, wounded, or injured by the weapons coming 
out of the arsenals of America, filtering through the hands of 
certain elements of the Iraqi security forces or however they 
are transmitted to these Sunni groups, this is a problem. I 
think we better lay a very careful foundation, a thorough one, 
study it through, test it, and see what security situations 
that we can have.
    I'll admit, and I'm somewhat responsible myself, years ago 
when we were literally arming certain insurgent elements in 
Afghanistan, giving them these handheld ground-to-air missiles, 
and frankly we failed to put in a device by which it terminated 
the life of that instrument, such that they're turning up in 
odd places of the world today still functioning as pieces of 
military equipment.
    I'm not suggesting you can take a rifle and put in some 
mechanism to limit its life. Mr. Chairman, I have to tell you, 
I'm going to probe into this very deeply and try and make some 
further assessments.
    Had you finished any response you wish to make, Mr. 
Vickers? I've asked you to provide it for the record and 
perhaps we better leave it at that point.
    Do you have any further comment, Admiral? Is this a matter 
that you're comfortable with? Your forces are on the point out 
there.
    Admiral Olson. Sir, with your permission I'll respond for 
the record.
    [The information referred to follows:]

    Admiral Olson. I reviewed this policy based on dialogue with my 
U.S. Central Command (CENTCOM) colleagues, and I support their 
carefully limited efforts under the current circumstances. As I 
understand it, this is not a broad, blanket policy. As the U.S. surge 
has begun to squeeze al Qaeda and other extremists out of Baghdad, some 
tribal sheikhs, both Sunni and Shia, have approached our Special 
Operations A-detachments and asked for support to provide security for 
their tribal areas and to rid them of foreign extremists. CENTCOM sees 
this as a temporary opportunity to fight al Qaeda in areas where it 
would not otherwise have the access or opportunity to do so. Their plan 
is relatively modest in scope by providing some small arms, ammunition, 
and security training to carefully vetted tribal members, who would be 
formed into ``community watch'' elements to report on suspicious 
intruders and protect the tribes from brutalism. In some cases, tribes 
which have turned against al Qaeda have suffered severely for it 
through beheadings and worse. Those tribes are looking to us to assist 
them when the Government of Iraq cannot or will not. My sense is that 
CENTCOM is doing everything possible to avoid both the perception and 
the reality of inadvertently aggravating internal civil strife between 
Sunnis and Shias. The activities of these tribal security elements will 
be controlled to the extent possible by the advisory contact of our 
Special Forces teams, and their duration will be only a few months, 
after which they will be integrated into the Iraqi police forces or 
disbanded. On that basis, I support their plan.

    Senator Warner. All right. It's a wise answer by both of 
the witnesses.
    Back to the famous nuclear stockpile, to my good friend and 
former partner here. Since the cessation of full-scale nuclear 
weapons testing in 1992, the Stockpile Stewardship Program has 
been developed to give us confidence in the inventory. 
Yesterday during a very pleasant and informative visit we had 
together, I said at that very table we brought in all the lab 
directors at one time to assess the progress in this. Have you 
developed a high confidence in this system as being able to 
provide this country with the technical data it needs, one, to 
provide safety, and two, to test components for such future 
developments of nuclear weapons as this Nation may require?
    Mr. D'Agostino. Yes, sir, I'm very comfortable with the 
system and with the Secretary we have now, who has a very 
strong technical background, he's challenged us appropriately 
in ways and probed certain areas to make sure that we have in 
place the right way to look at the stockpile, particularly as 
we get well into our second decade of no nuclear weapons 
testing with our current stockpile.
    Senator Warner. I do not anticipate any change in the 
policy of nuclear testing. As a matter of fact, I think it's 
important that we continue to lead as a Nation in terms of the 
nonproliferation efforts to strengthen that policy.
    On the issue of attrition, Admiral Olson, while the U.S. 
Special Operations Command and its components are striving to 
recruit and certify additional operators through their 
qualification courses, are the SOF personnel of all ranks 
leaving the Service at rates that are troublesome to you or do 
you think it's under control?
    Admiral Olson. Sir, thank you for asking the question about 
our experienced SOF operators, whom we value so highly. We do 
think it's under control. Largely with the support of this 
body, we have offered retention incentives. They have had a 
very positive effect. We are retaining our people at a rate 
across the board above the Service average. They are choosing 
to stay with us.
    Senator Warner. That's important. You're above other 
Services' average on retention now?
    Admiral Olson. That's correct, sir.
    Senator Warner. I think that's very reassuring.
    Now, given the unusual nature of your operations, 
individuals that are posted abroad for short periods, perform 
missions, return, how does your rotation base at home versus 
overseas compare to what is being adopted by the greater Army?
    Admiral Olson. Sir, in general our rotation periods are 
shorter, overseas for a shorter period, back for a shorter 
period, maintaining about the same overall ratios as the Army 
and the Marine Corps. But because of specific skill sets that 
may deteriorate during overseas assignments, we need to get 
them back with a greater frequency in order to bring those back 
up.
    So in general our force deploys for periods ranging from 
about 90 days at a time up to about 7 months at a time, with 
some staying as long as 12 months.
    Senator Warner. By the way, in our recent discussions, you 
promised to get me that framework of remarks by that 
extraordinary naval captain that is still in the system. I 
think he's going to stay. What's his name again?
    Admiral Olson. He's Captain Pete Van Hooser, sir.
    Senator Warner. Yes. He's overcome physical handicaps and 
other challenges to remain on the cutting edge of working with 
the organization. He's going to remain with you for a period of 
time?
    Admiral Olson. Yes, sir.
    Senator Warner. That's good. You'll send me that speech 
that he gave on the occasion of the loss of those troops?
    Admiral Olson. Yes, sir.
    Senator Warner. I thank you very much. I wish you well. You 
have enormous responsibilities ahead of each of you.
    Admiral Olson. Thank you, sir.
    Senator Warner. Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Warner.
    I have one additional question if I may, Mr. Vickers. The 
Principal Deputy to the Deputy Administrator of the NNSA is 
supposed to be an Active-Duty military officer, flag officer, 
assigned by DOD. This position has been vacant for more than 2 
years. If you are confirmed will you look into why this 
position remains vacant?
    Mr. Vickers. I will, sir.
    Senator Reed. Thank you very much.
    Senator Warner.
    Senator Warner. Mr. Chairman, we thank you for very capable 
services stepping in for Senator Levin this morning, who had 
duties that precluded him from attending. I shall report back 
favorably.
    Senator Reed. Thank you. I'll be mentioned in dispatches.
    Gentlemen, thank you very much, not only for your testimony 
this morning, but for your dedication and service to the Nation 
over careers of great distinction. Thank your families for us 
as well.
    The hearing is adjourned.
    [Whereupon, at 11:03 a.m., the committee adjourned.]

    [Prepared questions submitted to Michael G. Vickers by 
Chairman Levin prior to the hearing with answers supplied 
follows:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense (DOD) 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders (COCOMs), and the role of the Chairman of the Joint Chiefs 
of Staff. They have also clarified the responsibility of the military 
departments to recruit, organize, train, equip, and maintain forces for 
assignment to the COCOMs.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions? If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Goldwater-Nichols has been a major success. I see no reason 
to modify it at this time.

                             RELATIONSHIPS

    Question. If confirmed, what will be your relationship with:
    The Secretary of Defense.
    Answer. If confirmed, I will perform my duties under the direction 
and control of the Secretary of Defense through the Under Secretary of 
Defense for Policy. I will do my best to keep the Secretary well 
informed and will seek his guidance and direction and provide him with 
recommendations on policy matters within my purview.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, I anticipate working very closely with the 
Deputy Secretary on warfighting capabilities development and force 
transformation, among other matters. I will ensure that the Deputy 
Secretary has all the information he needs regarding my 
responsibilities to perform these duties.
    Question. The Under Secretary of Defense for Policy.
    Answer. If confirmed, I will report to the Under Secretary of 
Defense for Policy and seek his guidance and direction on matters 
pertaining to special operations, stability operations, force 
transformation and resources, and strategic capabilities. I plan to 
provide him with regular advice and recommendations on such matters.
    Question. The Under Secretary of Defense for Intelligence (USD(I)).
    Answer. Special Operations and intelligence demand extensive mutual 
support; therefore, if confirmed, I intend to foster a very close 
relationship with the Under Secretary of Defense for Intelligence. I 
also intend to work closely with USD(I) on strengthening our 
intelligence capabilities, including space and information operations 
capabilities.
    Question. The Assistant Secretary of Defense for International 
Security Affairs, the Assistant Secretary of Defense for Asia-Pacific 
Security Affairs, the Assistant Secretary of Defense for Homeland 
Defense, and the Assistant Secretary of Defense for Global Security 
Affairs (ASD(GSA)).
    Answer. If confirmed, I expect to maintain a close working 
relationship with the other Assistant Secretaries of Defense in the 
Office of the Under Secretary of Defense for Policy. I anticipate 
working very closely with the three assistant secretaries who exercise 
regional oversight of defense policy by providing them, along with the 
Under Secretary of Defense for Policy and the Secretary, with special 
operations and stability operations advice pertaining to ongoing 
operations and operations in the planning stage. I anticipate working 
very closely with the ASD(GSA) on several areas within ASD(GSA)'s 
portfolio, including force employment policy (e.g. security cooperation 
and contingency planning), partnership strategy, counterproliferation, 
and counternarcotics.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. Successful policy oversight of special operations requires 
close coordination and collaboration with the Joint Chiefs of Staff. If 
confirmed, I plan to maintain a close working relationship with the 
Joint Chiefs of Staff on special operations capabilities, strategic 
capabilities, conventional capabilities, force transformation, and 
resource guidance.
    Question. The Service Secretaries and Service Chiefs.
    Answer. If confirmed, I will work with the Service Secretaries and 
Chiefs to ensure that the requirements to organize, train, and equip 
Special Operations Forces (SOFs) are met. In addition, I will work 
closely with the Service Secretaries and Chiefs to ensure appropriate 
policy oversight of their capabilities development.
    Question. Commander, United States Special Operations Command 
(SOCOM).
    Answer. The relationship between the ASD(SO/LIC) and the Commander 
of U.S. SOCOM is critical. Therefore, I anticipate fostering and 
maintaining a close relationship with the Commander, characterized by 
mutual support, frequent contact, and dynamic exchanges of information 
and ideas in order to carry out the SO/LIC mission.
    Question. Commander, United States Strategic Command (STRATCOM).
    Answer. If confirmed, I will have responsibility for policy 
oversight of U.S. STRATCOM, and I plan to forge a strong relationship 
with the commander to ensure that we develop the strategic capabilities 
(e.g., missile defense, nuclear and conventional, global strike, 
information operations, and space capabilities) to meet a broad 
spectrum of emerging challenges.
    Question. Commander, United States Joint Forces Command (JFCOM).
    Answer. If confirmed, I anticipate a close working relationship 
with the Commander, JFCOM. Since JFCOM is the lead agent for force 
transformation and modernization, I will forge a strong relationship 
with the command to develop the future force.
    Question. Commander, United States Transportation Command 
(TRANSCOM).
    Answer. U.S. TRANSCOM is a key functional command that provides 
global deployment and sustainability for U.S. forces. If confirmed, I 
will maintain a close working relationship with Commander, U.S. 
TRANSCOM, to ensure that we maintain the most effective global 
deployment and distribution capabilities.
    Question. The regional COCOMs.
    Answer. The regional COCOMs are at the forefront of the war on 
terrorism and are responsible for maintaining a forward posture to 
deter and dissuade adversaries and assure our allies. If confirmed, I 
will work closely with the regional COCOMs to provide policy oversight 
for the operational employment of capabilities within the portfolio of 
ASD(SO/LIC). I will also ensure that the views of the regional COCOMs 
are taken into account with respect to capabilities requirements.
    Question. National Security Council and National Counterterrorism 
Center.
    Answer. SOF activities are central to counterterrorism; these 
activities are being coordinated within the larger U.S. Government 
counterterrorism effort through the NCTC's National Implementation Plan 
(NIP). If confirmed, I will maintain ASD(SO/LIC)'s role as the primary 
OSD interface on SOF and counterterrorism matters with the NIP, 
continuing to coordinate and monitor OSD, Joint Staff, and combatant 
command entities whose capabilities support the NIP. SO/LIC also will 
continue to represent DOD in the interagency on relevant matters, 
including participation in the Counterterrorism Support Group (CSG) and 
other interagency processes.
    Question. Central Intelligence Agency.
    Answer. A close relationship between the Central Intelligence 
Agency (CIA) and SOFs is essential to counter terrorism and to conduct 
ongoing operations in Iraq, Afghanistan, and other areas. If confirmed, 
I anticipate working very closely with Director, CIA, and his key 
subordinates. I will seek Memoranda of Agreements and Understanding 
with the CIA to facilitate the effective employment of SOF and other 
capabilities within the ASD(SO/LIC) portfolio.
    Question. U.S Department of State (DOS).
    Answer. The DOS is a key partner in counterterrorism and stability 
and reconstruction operations. If confirmed, I will work with DOS to 
develop effective strategies, policies, and capabilities to conduct 
these types of operations. I will seek Memoranda of Agreements and 
Understanding with the Department of State to ensure the effective 
employment of SOF and other capabilities within the ASD(SO/LIC) 
portfolio. I will use DOD resources, as required and authorized, to 
assist the Department of State in developing its capabilities for 
stability and reconstruction operations. If confirmed, I anticipate 
working very closely with the Counselor to the Secretary of State and 
the Assistant Secretary of State for Political-Military Affairs on 
these matters.
    Question. The commanders of the Service SOCOMs.
    Answer. If confirmed, I expect to work closely with the commanders 
of the Service Special Operations component commands to ensure that 
they develop and provide the capabilities that the Commander, U.S. 
SOCOM, and the regional COCOMs require.

                             QUALIFICATIONS

    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. For nearly all of the 34 years that have transpired since I 
enlisted in the Special Forces, I have devoted my professional life to 
the policy, strategy, operational, and resource aspects of the duties 
assigned to the Assistant Secretary of Defense (SO/LIC). My 13 years of 
experience as a direct Special Forces (SF) enlistee (1970s version of 
the 18X program), SF noncommissioned officer, SF commissioned officer 
and commander of SOF operational units, and Operations Officer with the 
CIA provided me with extensive operational experience across SOF 
mission areas and across a wide range of geographical and operational 
environments, in clandestine intelligence operations and covert action, 
in interagency policy formulation and execution at the U.S. mission, 
combatant command, subcombatant command, subcabinet, cabinet, and 
presidential levels, in congressional oversight of very sensitive and 
compartmented U.S. Government programs, and interaction with senior 
allied and partner foreign government officials. I have had significant 
operational experience across of a wide range of irregular warfare 
disciplines, encompassing counterterrorism, unconventional warfare and 
foreign internal defense/counterinsurgency, and have served on both the 
``Black'' and ``White'' sides of SOF. As a CIA officer, I played a key 
role in the Grenada rescue operation, for which I received a CIA award 
for valor. In the aftermath of the Beirut bombings in 1983, I was a 
core member of a CIA operational task force focused on identifying and 
retaliating against the perpetrators of the attacks. During the mid-
1980s, I was the principal strategist for the largest and most 
successful covert action program in the CIA's history: the successful 
effort to drive the Soviets out of Afghanistan, which contributed 
significantly to ending the Cold War and facilitating the collapse of 
the Soviet empire. Since the early 1990s, I have advised DOD on force 
transformation, and have written about and worked extensively on the 
Revolution in Military Affairs, space warfare, information warfare, and 
the transformation of strategic warfare. I have been an advisor to the 
senior leadership of DOD on the global war on terrorism since September 
12, 2001. I played a central, substantive role during the 2006 
Quadrennial Defense Review (QDR) advising the senior leadership of DOD 
on the imperative of and strategies for rebalancing the warfighting 
capabilities of the Department for the challenges of the 21st century. 
With General Wayne Downing (USA, Retired) and Major General Bill 
Garrison (USA, Retired), I provided the Secretary of Defense with a 
comprehensive assessment of SOFs and their way forward. I have advised 
President Bush and his war cabinet on strategy in Iraq. I have received 
substantial graduate education in both management and in strategic 
studies. I have provided extensive testimony to Congress on the global 
war on terrorism, the Revolution in Military Affairs and force 
transformation. If confirmed, I believe this combined experience 
qualifies me to assume the duties of ASD(SO/LIC).

                                 DUTIES

    Question. Section 138(b) (4) of title 10, U.S.C., describes the 
duties and roles of the Assistant Secretary of Defense for Special 
Operations and Low-Intensity Conflict (ASD(SO/LIC)).
    What is your understanding of the duties and functions of the 
ASD(SO/LIC)?
    Answer. The ASD(SO/LIC) is the principal civilian advisor to the 
Secretary of Defense on special operations and low-intensity conflict 
matters. After the Secretary and Deputy Secretary, the ASD(SO/LIC) is 
the principal special operations and low-intensity conflict official 
within the senior management of DOD. The ASD(SO/LIC) has as his 
principal duty overall supervision (to include oversight of policy and 
resources) of special operations and low-intensity conflict activities. 
These core tasks, according to U.S. SOCOM's 2007 Posture Statement, 
include counterterrorism; unconventional warfare; direct action; 
special reconnaissance; foreign internal defense; civil affairs, 
information and psychological operations; and counterproliferation of 
WMD. Section 167 of title 10, U.S.C., provides a very similar but not 
identical list of SOF activities.
    Question. Assuming you are confirmed, what changes, if any, in the 
duties and functions of ASD(SO/LIC) do you expect that the Secretary of 
Defense would prescribe for you?
    Answer. The Secretary of Defense has reorganized his policy office. 
Pursuant to the reorganization, the ASD(SO/LIC) will become the 
Assistant Secretary of Defense for Special Operations/Low-Intensity 
Conflict and Interdependent Capabilities (ASD(SO/LIC&IC)) will have, in 
addition to policy oversight for special operations and stability 
operations capabilities, policy oversight for strategic capabilities 
and force transformation and resources. As such, ASD(SO/LIC&IC), after 
the Secretary and Deputy Secretary, will be the principal official 
charged with oversight over all warfighting capabilities within the 
senior management of DOD.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. As described above, given my experience in force 
transformation and strategic capabilities, in addition to my experience 
in SOF and irregular warfare, I believe that, if confirmed, I am 
qualified to assume the duties of ASD(SO/LIC&IC).
    Question. In your view, are the duties set forth in section 
138(b)(4) of title 10, U.S.C., up-to-date, or should changes be 
considered?
    The duties outlined in section 138(b)(4) of title 10, U.S.C., do 
not require changes at this time.
    Question. What changes, if any, would you recommend?
    Answer. None at this time.
    Question. What DOD activities are currently encompassed by the 
Department's definition of special operations and low-intensity 
conflict?
    Answer. Special operations and low-intensity conflict activities, 
as defined in title 10, U.S.C., section 167, include direct action, 
strategic reconnaissance, unconventional warfare, foreign internal 
defense, civil affairs, psychological operations, counterterrorism, 
humanitarian assistance, theater search and rescue, and such other 
activities as may be specified by the President or Secretary of 
Defense. U.S. SOCOM's nine core tasks, as noted in Question 4, are 
similar but not identical.
    Question. If confirmed, would you exercise overall supervision of 
all special operations and low-intensity conflict activities of DOD?
    Answer. Yes.
    Question. In cases in which other Assistant Secretaries within the 
Office of the Secretary of Defense (OSD) exercise supervision over some 
special operations and low-intensity conflict activities, what is the 
relationship between your office and those other offices?
    Answer. I am not aware of other Assistant Secretaries who exercise 
supervision over special operations and low-intensity conflict 
activities. I believe title 10 U.S.C., section 138(b)(4) is clear on 
this point. If an activity pertains to special operations and low-
intensity conflict, then ASD(SO/LIC&IC) supervises and provides policy 
and oversight, and is the principal advisor to the Secretary of Defense 
on these matters. After the Secretary and Deputy Secretary of Defense, 
the ASD(SO/LIC&IC) is the principal special operations and low-
intensity conflict official within DOD. I recognize, however, that, if 
confirmed, I would need to work closely on special operations and low-
intensity conflict matters with the regional and other functional ASDs 
in the OSD.

                          SO/LIC ORGANIZATION

    Question. If confirmed, how would you fulfill your responsibilities 
related to combating terrorism?
    Answer. SOFs are central to combating terrorism. If confirmed, I 
will work to ensure that SOF have clear policy guidance and sufficient 
capabilities and resources to carry out such missions. If confirmed, I 
also will work within DOD, with other government agencies, and in the 
interagency process to ensure that we have the most effective policies, 
strategies, capabilities, and operations for combating terrorism.
    Question. How would you coordinate these responsibilities with the 
ASD for Homeland Defense, who has responsibilities for combating 
terrorism in the United States?
    Answer. The Under Secretary of Defense for Policy, as stipulated in 
section 902 of the Bob Stump National Defense Authorization Act for 
Fiscal Year 2003, will exercise principal responsibility for the 
overall direction and supervision for policy, program planning and 
execution, and allocation of resources for the Department's combating 
terrorism activities. If confirmed as the ASD(SO/LIC&IC), I will 
maintain oversight with regard to DOD's global combating terrorism 
activities and coordinate closely with the ASD(HD) on matters related 
to combating terrorism within the United States and the Western 
Hemisphere.
    Question. How would you coordinate these responsibilities with the 
Under Secretary of Defense for Policy?
    Answer. If confirmed, I will report to the Secretary of Defense and 
Deputy Secretary of Defense through the Under Secretary of Defense for 
Policy.
    Question. If confirmed, how would you fulfill your responsibilities 
related to peacekeeping and humanitarian assistance?
    Answer. As a result of the policy reorganization, the 
responsibility for overseeing peacekeeping and humanitarian assistance 
now falls under the ASD for Government Security Affairs (GSA). The 
ASD(SO/LIC&IC)'s role is to ensure that U.S. forces have the 
capabilities they need to participate in these types of activities and 
to oversee Special Operation Forces and interdependent capabilities 
when they participate in such activities.

                      POLICY OFFICE REORGANIZATION

    Question. The office of the Under Secretary of Defense for Policy 
is currently being reorganized. We understand that the proposed 
reorganization would place the following responsibilities under the 
ASD(SO/LIC) in addition to responsibility for Special Operations, 
combating terrorism, and stability operations: strategic capabilities, 
and forces transformation and resources.
    If confirmed, would these additional duties fall under your office?
    Answer. Yes.
    Question. What do you believe would be the impact of placing such a 
broad span of issues under the ASD(SO/LIC)? Specifically, do you 
believe the ASD(SO/LIC) would be able to work within the letter and 
spirit of section 138(b)(4) of title 10, which states that oversight of 
Special Operations should be the ASD's ``principal duty?''
    Answer. I believe that, if confirmed, I am qualified to assume the 
duties that would be assigned to me as ASD(SO/LIC&IC). I have 
significant experience in each of the areas for which I would have 
policy oversight, as well as significant experience in capability 
transformation and integration. I believe that the duties assigned to 
ASD(SO/LIC&IC) constitute a manageable span of control which is similar 
to that assigned to other ASDs. I will be assisted by a Principal 
Deputy Assistant Secretary of Defense, four DASDs and a substantial 
staff of directors and action officers. In previous assignments of 
similar scope and responsibility, I was able to accomplish the duties 
assigned to me with far fewer staff resources. In some key areas that 
fall within the ASD(SO/LIC&IC) portfolio, moreover, I will be assisted 
in policy oversight by other senior policy officials who have vast 
experience and expertise in these areas. The Under Secretary of Defense 
(Policy) (USD(P)), for example, is currently heavily engaged in missile 
defense negotiations, and I would expect him to continue to take a 
primary role in this issue area. The USD(P) has a much larger span of 
control than the ASD(SO/LIC&IC) and the USD(P), to my knowledge, is 
considered to have a manageable span of control. In addition to having 
oversight for all of the areas envisioned as falling under ASD(SO/
LIC&IC), the USD(P) has oversight of global security affairs, homeland 
defense, and regional and global defense strategy and policy.
    I believe that my recent experience in the 2006 QDR demonstrates 
convincingly that I am capable, if confirmed, of assuming the duties of 
ASD(SO/LIC&IC), and that the span of issues assigned to ASD(SO/LIC&IC) 
is not too broad. As a senior advisor to OSD for the 2006 QDR, I 
consulted intensively the development of new strategies and in 
facilitating decisions by the senior leadership of the Department to 
develop new capabilities and capacities in all of the areas that would 
be placed under ASD(SO/LIC&IC). In addition to serving as a senior 
advisor to the main QDR process, I was also asked to serve as Executive 
Director for an external QDR ``Red Team'' that reported directly to the 
Deputy Secretary. The membership of the Red Team included six retired 
four-star officers who collectively represented all of the Services, 
two regional combatant commands, SOCOM, and the Intelligence Community. 
Nearly all of the Red Team's recommendations were subsequently adopted 
by the main QDR process and the senior leadership of the Department. I 
also was a core member of the team that developed the Downing Report 
for the Secretary of Defense, which assessed SOF policies, processes, 
organization, and capabilities. As was the case with the QDR Red Team 
report, nearly all of the recommendations of the Downing Report were 
subsequently adopted by the main QDR process and the senior leadership 
of the Department.
    I believe that the duties assigned to ASD(SO/LIC&IC) pursuant to 
the reorganization of OUSD(P) will provide the Secretary of Defense 
with substantially improved oversight of the Department's current and 
future warfighting capabilities, and that special operations 
capabilities and stability operations capabilities will be 
substantially strengthened by having a single senior defense official 
with oversight over all of the Department's warfighting capabilities. 
SOF capabilities and capacities were substantially increased as a 
result of the QDR, which, as described above, provided a ``proof of 
principle'' for how an ASD(SO/LIC&IC) could function within the 
Department. Placing policy oversight for ground general purpose 
capabilities for irregular warfare and conventional campaigns under one 
senior policy official will, in my judgment, substantially improve the 
oversight of OSD. A single source of policy oversight of U.S. STRATCOM 
and U.S. SOCOM will enable more effective collaboration and 
coordination of strategic capabilities, specifically information 
operations and prompt conventional strike, that are critical to 
prosecuting the global war on terrorism.
    If confirmed, I believe strongly that I will be able to work within 
the letter and spirit of section 138(b)(4) of title 10, U.S.C., and 
that oversight of special operations will remain the ``principal duty'' 
of ASD(SO/LIC&IC). I will remain a member of U.S. SOCOM's board of 
directors, retain oversight of Major Force Program 11, and ensure that 
there is no dilution of focus on Special Operations--on my part, as 
well as within the organization which, if confirmed as ASD(SO/LIC&IC), 
I would lead.
    Question. If confirmed, under this new organization, how would you 
fulfill your responsibilities related to strategic capabilities? What 
would be the major challenges in this area, and, if confirmed, how 
would you address them?
    Answer. If confirmed, I will assume oversight and management of 
issues related to strategic capabilities through oversight of the 
Deputy Assistant Secretary of Defense for Strategic Capabilities. There 
are a number of challenges that fall within this portfolio. One is to 
ensure that the United States, its allies and friends, and its deployed 
forces are protected from attack by ballistic missiles, especially 
those that might carry weapons of mass destruction. Another is to 
protect U.S. interests in the global commons of space and cyberspace, 
particularly our freedom of action in these realms which are so 
critical to U.S. security. A third challenge is to continue to address 
U.S. deterrence needs for the 21st century, developing and implementing 
a sustainable strategy to ensure that U.S. forces, including nuclear 
forces and conventional global strike capabilities, meet the increased 
range of challenges we face due to the proliferation of weapons of mass 
destruction. If confirmed, I will work closely with Congress and our 
allies to address these issues.
    Question. If confirmed, under this new organization, how would you 
fulfill your responsibilities related to forces transformation and 
resources? What would be the major challenges in this area, and, if 
confirmed, how would you address them?
    Answer. The major challenge in the forces transformation and 
resources area will be to facilitate the transformation of conventional 
capabilities, as directed by the 2006 Quadrennial Defense Review. This 
will require, over time, significant rebalancing of the conventional 
capabilities portfolio, including both substantial investment in new 
capabilities and capacities as well as divestment of capabilities and 
capacities whose strategic effectiveness is in decline. If confirmed, I 
anticipate being the Department's principal policy official for forces 
transformation and resources, and I would work closely with Congress to 
address the major challenges in this area.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the ASD(SO/LIC)?
    Assuming you are confirmed, what plans do you have for addressing 
these challenges?
    What do you anticipate will be the most serious problems in the 
performance of the functions of the ASD(SO/LIC)?
    If confirmed, what management action and timelines would you 
establish to address these problems?
    Answer. The overarching challenge that will confront the ASD(SO/
LIC&IC) will be to implement the direction provided in the 2006 QDR 
across all of the Department's warfighting capabilities while providing 
policy oversight over their employment. Rebalancing the overall Defense 
portfolio over time will require significant reallocation of defense 
resources. There are challenges specific to each issue area. Growing 
SOF, as prescribed in the 2006 QDR, while maintaining quality 
standards, will pose a significant challenge. Securing the necessary 
authorities with the Department of State and the CIA to facilitate the 
effective global employment of SOF will pose a second challenge. 
Rebalancing ground general purpose force capabilities toward irregular 
warfare while maintaining their capability to conduct conventional 
campaigns is a third challenge. The tension between the need to 
recapitalize current capabilities while transforming and expanding the 
force to meet future threats will pose another major challenge. 
Providing policy oversight for ongoing operations in Iraq and 
Afghanistan, coupled with the omnipresent potential for strategic 
surprise in other areas, will pose a major challenge for senior policy 
officials. I do not know at this time, which, if any of these or other 
major challenges will pose the most serious problem for ASD(SO/LIC&IC). 
If confirmed, I will work closely with Congress to develop action plans 
that address these major challenges and any serious problems that 
emerge.

                               PRIORITIES

    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the ASD(SO/LIC)?
    Answer. If confirmed, my top priorities will be to implement the 
direction provided in the 2006 QDR across the Department's warfighting 
capabilities, and to provide policy oversight of Special Operations, 
conventional, and strategic forces. I would seek to develop the 
capabilities that will be needed to win the global war on terrorism, 
shape the choices of countries at strategic crossroads, such as China, 
in ways favorable to U.S. interests, and deal with the challenges of a 
more proliferated world in which both more States, as well as non-State 
actors, have access to weapons of mass destruction. I strongly believe 
that while the ASD(SO/LIC&IC) must address key capability requirements 
in each of area assigned to him, it is imperative that the ASD place 
all his attention on his top priorities.
    If confirmed as ASD(SO/LIC&IC), I would likely have two overarching 
priorities, and two to three top priorities in each capability area. By 
area, my priorities will likely be to:
Overarching Priorities:
        <bullet> Ensure that the warfighting capabilities under my 
        oversight are used in the most effective way possible to 
        achieve favorable outcomes in Iraq, Afghanistan, and the 
        broader global war on terrorism, and ensuring that all relevant 
        capabilities are brought to bear to eliminate al Qaeda 
        sanctuaries in Western Pakistan and other areas.
        <bullet> Build a high morale, strategically effective 
        organization in ASD(SO/LIC&IC) that is able to serve as the 
        principal civilian advisor to the Secretary of Defense for all 
        DOD warfighting capabilities.
SOF Priorities:
        <bullet> Ensure that the Department develops and expands SOF 
        capabilities, capacities and posture without diluting quality 
        standards, to create a Global Counterterrorism Network capable 
        of winning the global war on terrorism that could principally 
        be waged in countries with which the United States is not at 
        war. Doing this will require bringing SOF capabilities and 
        operations into much closer strategic and operational alignment 
        with other government agencies.
        <bullet> Ensure that the Department develops the capabilities 
        to locate, tag and track terrorists and other threats to U.S. 
        interests and that future SOF have the capability to 
        clandestinely infiltrate into, conduct operations within and 
        exfiltrate from denied areas.
        <bullet> Achieve an appropriate balance--in strategy, 
        resources, and senior leader development--between indirect and 
        direct approaches to irregular warfare.
Ground General Purpose Force Irregular Warfare and Stability Operations 
        Priorities:
        <bullet> Ensure that ground general purpose forces develop the 
        required capabilities for steady-state and surge irregular 
        warfare operations while maintaining their capabilities for 
        conventional campaigns.
        <bullet> Assist the Department of State and other government 
        agencies and departments to develop stability operations 
        capabilities that will enable a more effective whole-of-
        government approach to stability and reconstruction operations.
Strategic Capabilities Priorities:
        <bullet> Ensure that the Department has space and information 
        operations policy and capabilities to meet current and future 
        challenges.
        <bullet> Ensure that the Department has a prompt global strike 
        capability to deal with the sudden emergence of extremely time-
        sensitive, high-value targets.
        <bullet> Support ongoing efforts to develop an effective 
        missile defense system and ensure that the Department develops 
        a robust nuclear deterrent capability to meet emerging 
        challenges.
Conventional Capabilities and Transformation Priorities:
        <bullet> Redefine force transformation to bring it into much 
        closer alignment with anticipated future challenges and defense 
        strategy, and ensure that the Department develops the 
        capabilities to conduct operations in a highly proliferated 
        world.
        <bullet> Ensure that sufficient resources are provided to 
        enable the Department to field the next generation long-range 
        strike system by 2018, that the potential for unmanned systems 
        is fully exploited across the Department's warfighting 
        capabilities.
        <bullet> Ensure that the Department develops the undersea 
        warfare capabilities necessary to shape the choices of 
        countries at strategic crossroads, and hedge against the 
        emergence of a potential near-peer competitor.

                              AFGHANISTAN

    Question. About 5 years after securing a military victory against 
the Taliban and al Qaeda in Afghanistan, U.S. and international forces 
are still fighting Taliban forces and other opponents of the Afghan 
government.
    What is your assessment of the current situation in Afghanistan? 
What are the weaknesses and shortcomings in the current effort to 
combat terrorism and insurgency in Afghanistan?
    Answer. I am cautiously optimistic about the current situation in 
Afghanistan. The Taliban regime has been removed from power; al Qaeda 
no longer enjoys a safe haven in Afghanistan to plan and launch attacks 
against the United States; and Afghanistan is a democratic state. The 
Afghan government, with the support of the international community, is 
extending its reach throughout the country; the Afghan economy is 
growing; and more Afghans than ever before enjoy the benefits of 
education and health care.
    Nonetheless, challenges remain. We face tenacious enemies in the 
Taliban, al Qaeda, and other extremist groups. The United States, under 
Operation Enduring Freedom, leads the international counterterrorism 
effort in Afghanistan. The NATO International Security Assistance 
Force's mandate covers security and stability. We work closely with 
other U.S. agencies and with our Allies and partners to execute a 
counterinsurgency approach that combines military operations with other 
critical elements such as development, capacity-building, diplomacy, 
and communications. The lead for counterinsurgency in Afghanistan is 
the Afghan government. As such, the most important defense-related 
effort in Afghanistan is the mission to train and equip the Afghan 
National Security Forces (ANSF), which includes both the Afghan 
National Army (ANA) and Afghan National Police (ANP). The ANA appears 
to be taking increasing responsibility for planning and executing 
operations. Our focus now is to bring the ANP to the same level.
    If I am confirmed, I would be pleased to discuss our efforts in 
this area, including our weaknesses and shortcomings, in greater detail 
in a closed hearing.
    Question. If confirmed, what initiatives would you take to improve 
the military effort to combat terrorism in Afghanistan?
    Answer. I believe that military counterterrorism efforts in 
Afghanistan, led by the U.S., are succeeding. Of course, there is 
always room for improvement, and I would be pleased, if confirmed, to 
discuss such matters in greater detail in closed session.
    What is crucial now is that we build on our successes. For example, 
the recent capture or death of senior Taliban and al Qaeda commanders, 
especially Dadullah Lang, is a significant blow against the enemy.
    In addition to maintaining pressure on these groups and 
individuals, it is critical that we work with Pakistan and Afghanistan 
to expand cooperation and strengthen existing mechanisms for 
intelligence-sharing, military-to-military dialogue, and political 
discourse, and support Pakistan's efforts to eliminate terrorist 
sanctuaries in West Pakistan.
    Question. In your view, what is the appropriate role of SOFs in 
Afghanistan, and the proper relationship between direct action and 
counterterrorism and counterinsurgency operations there? SOFs direct 
action and counterterrorism play key roles in Afghanistan, but they are 
only one part of our overall effort.
    We work closely with other government agencies and with our allies 
and partners to help the Afghan government execute a comprehensive 
counterinsurgency approach that combines military operations with other 
critical elements such as development, capacity-building, good 
governance, and communications.

              TRANSFORMATION OF SPECIAL OPERATIONS FORCES

    Question. Much attention has been focused on the transformation of 
our conventional Armed Forces to make them more capable of conducting 
counterinsurgency and combating terrorism missions.
    Do you believe that our SOFs need to be transformed?
    Answer. Yes. We are in a long irregular war that requires U.S. 
Armed Forces to increasingly adopt indirect, unconventional, and 
clandestine approaches. To that end, I strongly support the 2006 QDR 
recommendation to increase SOF capabilities and capacities to perform 
more demanding and specialized tasks to defeat terrorists and other 
irregular challenges, while providing substantially increased global 
presence. Increasing SOF capabilities and capacities also broadens and 
deepens available U.S. strategic options for dealing with hostile 
states. I believe that the 2006 QDR provides an appropriate vision and 
strategy for the transformation of SOF.
    Question. If so, what is your vision for such a transformation, and 
how would the transformation of conventional forces complement a SOF 
transformation, and vice versa?
    Answer. Expanding the capability and capacity of SOF to take on the 
more demanding and specialized tasks will require the ability to:

        <bullet> Conduct long-duration, indirect, and clandestine 
        operations in politically sensitive environments and denied 
        areas;
        <bullet> Locate, tag, and track dangerous individuals and other 
        high-value targets globally; and
        <bullet> Detect, locate, and render safe WMD.

    As the 2006 QDR recommended, we need to increase both SOF and 
conventional force capability and capacity to conduct and sustain long-
duration irregular operations.

        <bullet> For surge scenarios, the conventional force should 
        become as proficient in counterinsurgency and stabilization 
        operations as it is in high-intensity combat.
        <bullet> For steady-state operations, the conventional force 
        should possess the ability to train, mentor, and advise foreign 
        security forces.

    Additionally, expanding the capability and capacity of conventional 
forces through exploitation of the Revolution in Military Affairs, 
will, as demonstrated in Operation Enduring Freedom, substantially 
increase the effectiveness of unconventional warfare and special 
operations.
    My vision for transforming SOFs, conventional forces and strategic 
forces is resident in the priorities (outlined in the answer to 24, 
above) I would likely have, if confirmed, as ASD(SO/LIC&IC). My vision 
is very closely aligned with the transformation vision outlined in the 
2006 QDR. My vision is described more fully in my recent testimony to 
the House Armed Services Committee on SOF and the global war on terror, 
in several publications and reports I have authored or co-authored 
while with the Center for Strategic and Budgetary Assessments, and in 
numerous public speeches I have given on the topic. I have provided the 
committee with several samples of each, and would be pleased to discuss 
my vision in greater depth at the committee's request.
    Question. Specifically, what do you believe transformation should 
mean for the special operations community in terms of missions, 
training, equipment, or in any other aspect?
    Answer. SOF transformation should be focused on the capabilities, 
capacities and posture required to win the global war on terrorism, and 
on the capabilities and capacities required to conduct unconventional 
warfare and SOF-intensive operations against hostile states, including 
those who possess advanced anti-access capabilities. With respect to 
the global war on terror, SOF transformation should result in 
capabilities and capacities to plan and synchronize the global war on 
terror and conduct persistent, low visibility indirect and clandestine 
operations in scores of countries (with which the United States is not 
at war) simultaneously. SOF transformation for the global war on terror 
should substantially improve SOF's ability to operate in denied areas, 
to locate, tag and track terrorists and other high-value targets and 
threats, and to render safe multiple nuclear weapons simultaneously. 
SOF transformation for operations against hostile states should focus 
on the capabilities required to penetrate and operate in denied areas, 
and to exploit the full potential of the Revolution in Military 
Affairs. The development of SOF and global war on terror strategists 
and senior leaders should also be a top transformation priority. 
Additional details on SOF transformation are contained in my testimony 
on SOF and the global war on terror before the House Armed Services 
Committee.
    Over the past 3 decades, as strategic circumstances have changed, 
SOF has been required to take on new missions, such as 
counterterrorism, information operations, and counterproliferation of 
WMD. The only changes in missions currently envisioned that would 
result from SOF and general purpose force transformation would be to 
divest certain areas to the GPF, freeing up SOF to do more of the 
unique missions for which they are specially trained, organized and 
equipped (e.g., UW, CT). The ongoing transformation of both the 
strategic environment and SOF capabilities, however, will undoubtedly 
require SOF to take on new, as of yet unforeseen, missions in the 
future. If confirmed, I look forward to continuing this discussion with 
the committee.
    Question. Are the SOCOM and DOD investing in the technologies to 
transform SOF according to the vision you describe?
    Answer. Yes. U.S. SOCOM and the Department are investing in key 
technologies to transform SOF. U.S. SOCOM has a strong technology 
development program designed to deliver key capabilities to the SOF 
warrior in the shortest time possible. In addition, the ASD(SO/LIC&IC) 
is responsible for managing and providing technical oversight of the 
Combating Terrorism Technology Support program. This program supports 
many organizations, including U.S. SOCOM, to conduct rapid prototyping 
for combating terrorism technologies. For the longer term, a new 
Capabilities Based Assessment for Irregular Warfare is underway in the 
Department which will help identify key capability gaps in irregular 
warfare. Identifying these gaps will help the Department focus 
technology development in new areas to the greatest benefit. Over time, 
however, substantial additional resources will almost certainly be 
needed if U.S. SOCOM is to fully realize my vision for transforming 
SOF.
    Question. What, if any, special role can SOCOM's development and 
acquisition capability play in Service and DOD efforts?
    Answer. U.S. SOCOM has its own development and acquisition program 
for SOF-unique capabilities. The command also participates in Service-
common development and acquisition. For these Service-common 
development and acquisition programs, U.S. SOCOM has a special role 
including its unique capability needs in larger service programs. U.S. 
SOCOM frequently takes a service common item and modifies it for SOF-
specific needs, which results in significant savings. This acquisition 
operating practice, however, may become more problematic in the future 
if, as anticipated, the platform needs of SOF and the general purpose 
forces diverge significantly. For example, maintaining a long-range 
clandestine air mobility capability for SOF after the Combat Talon and 
other non-stealthy aircraft are no longer capable of penetrating into 
denied airspace is a looming challenge that may require additional 
resources to U.S. SOCOM. Ensuring that U.S. SOCOM requirements are met 
by Service and Department acquisition programs or by the provision of 
sufficient resources and program management capabilities to develop 
SOF-unique platforms is a core responsibility of ASD(SO/LIC&IC). 
Conversely, as general purpose forces become more involved in irregular 
warfare, capabilities that were once SOF-unique could become 
increasingly available to general purpose forces.
   civilian oversight of the united states special operations command
    Question. The 1986 Special Operations legislation assigned 
extraordinary authority to the Commander, U.S. SOCOM, to conduct some 
of the functions of both a military service and a unified combat 
command.
    Which civilian officials in the DOD exercise civilian oversight of 
the ``service-like'' authorities of the Commander, U.S. SOCOM?
    Answer. Per title 10, U.S.C. and DOD Directive 5111.10 (in 
accordance with USD (P) priorities and guidance), the ASD SO/LIC&IC is 
the principal civilian oversight for all SOF matters. Other DOD 
civilian officials also exercise oversight in some capacity.

        <bullet> USD (AT&L) coordinates on acquisition issues
        <bullet> USD (P&R) coordinates on personnel policies such as 
        SOF unique incentive packages
        <bullet> USD (Comptroller) coordinates on SOF budget and year 
        of execution program issues
        <bullet> Service Secretaries coordinate on SOF manpower issues
        <bullet> Director, PA&E, coordinates on SOF Program development 
        and issues.

    Question. In your view, what organizational relationship should 
exist between the ASD(SO/LIC) and the Commander, U.S. SOCOM? ASD(SO/
LIC) provides civilian oversight of all special operations matters as 
required by title 10, U.S.C. As such, ASD(SO/LIC) provides policy and 
resource guidance and advice to implement Secretary of Defense and 
USD(P) priorities. ASD(SO/LIC) is a voting member of U.S. SOCOM's Board 
of Directors for Program guidance and decisions. The relationship with 
Commander, U.S. SOCOM should be collaborative and cooperative to ensure 
that we develop the best possible forces and employ them effectively.
    Question. What should be the role of the ASD(SO/LIC) in preparation 
and review of Major Force Program 11 and the Command's Program 
Objective Memorandum?
    Answer. The ASD(SO/LIC) provides policy oversight of the 
preparation and justification of the SOFs' program and budget. The ASD 
co-chairs the U.S. SOCOM Board of Directors--the U.S. SOCOM resource 
decision forum. If confirmed, I will work closely with the Commander, 
U.S. SOCOM, to ensure that U.S. SOCOM funding sustains a ready, capable 
force, to meet this new era's challenges.
    Question. What is the appropriate role of the ASD(SO/LIC) in the 
research and development and procurement functions of the SOCOM? The 
appropriate role of ASD(SO/LIC) is to provide policy oversight in 
resolving special operations acquisition issues. As the lead OSD 
official for SOF acquisition matters, ASD(SO/LIC) represents SOF 
acquisition interests within DOD and before Congress. The 
responsibilities and relationships between ASD(SO/LIC) and the 
Commander, U.S. SOCOM are defined and described in a Memorandum of 
Agreement between the ASD and Commander, U.S. SOCOM. The ASD directs 
and provides policy oversight to technology development programs that 
address priority mission areas to meet other departmental, interagency, 
and international capability needs (e.g. the Technical Support Working 
Group).
    Question. What is the appropriate role of the ASD(SO/LIC) in the 
operational planning of missions that involve SOFs, whether the 
supported command is SOCOM or a geographic command?
    Answer. ASD(SO/LIC) serves as the principal advisor to the 
Secretary of Defense for all aspects of employment, deployment, and 
oversight of Special Operations and counterterrorism capabilities. SO/
LIC provides policy oversight of the mission planning for U.S. SOCOM 
and geographic Combatant Commanders in the employment of SOF to ensure 
compliance with public law and DOD priorities. ASD(SO/LIC) coordinates 
deployment authorities and plans involving SOF within DOD and with 
interagency partners as required.

                 EXPANDED ROLES OF UNITED STATES SOCOM

    Question. U.S. SOCOM has additional, expanded responsibilities in 
the global war on terrorism, as a supported COCOM, in addition to its 
more traditional role as a supporting COCOM.
    What role should ASD(SO/LIC) play in the oversight and planning of 
such missions?
    Answer. U.S. SOCOM should continue to exercise responsibility as 
the lead planner and synchronizer for the global war on terrorism. As 
U.S. SOCOM develops campaign plans in coordination with geographic 
COCOMs and Combat Support Agencies, the ASD(SO/LIC&IC) should maintain 
oversight of such planning and should develop concepts and initiatives 
for the employment of SOF and coordinate or obtain the authorities 
required within DOD, in the interagency and by Congress. ASD(SO/LIC&IC) 
is responsible for ensuring that the requisite policies, authorities, 
capabilities and resources are sufficient for execution of the plans 
and operations for which U.S. SOCOM is responsible. ASD(SO/LIC&IC) 
should also ensure that an appropriate balance in achieved between 
indirect and direct approaches and capabilities in U.S. SOCOM plans, 
operations, command structure and resource allocation decisions.
    Question. In your view, what types of missions should SOCOM conduct 
as a supported combatant command?
    Answer. U.S. SOCOM's role should be, in accordance with the Unified 
Command Plan, the supported commander for planning and synchronization 
of the global war on terrorism. Actual mission execution in most 
instances would still be conducted by Geographic Combatant Commanders, 
or, more precisely, in accordance with title 10, U.S.C., section 167: a 
special operations activity or mission shall be conducted under the 
command of the commander of the unified combatant command in whose 
geographic area the activity or mission is to be conducted.
    Only in rare instances, involving highly sensitive targets or 
significant political considerations, would Commander U.S. SOCOM 
execute a mission; specifically, he shall exercise command of a 
selected special operations mission if directed to do so by the 
President or the Secretary of Defense.
    Question. In your view, how are intelligence activities different 
from other SOCOM activities? U.S. SOCOM's primary activities are 
directed at the operational and tactical level, using intelligence to 
directly facilitate the conduct of everyday mission sets covering the 
nine Special Operations Core Tasks. Since they are not directed by the 
Director of National Intelligence for the purpose of collecting or 
producing strategic intelligence, these activities fall outside of the 
consolidated national intelligence program. Some compartmented 
intelligence activities conducted by U.S. SOCOM elements are funded 
under intelligence programs and operate under different authorities.

                   SIZE OF SPECIAL OPERATIONS FORCES

    Question. The QDR called for increases in the size of SOFs.
    Do you believe that we should increase the number of special 
operations personnel?
    If so, why, and by how much? If confirmed, would you consider 
greater increases than those envisioned in the QDR?
    Answer. Yes, I strongly believe it is imperative to increase the 
number of special operations personnel as prescribed in the 2006 QDR. 
SOF growth is a core aspect of SOF transformation. Only with this 
growth, will U.S. SOCOM be able to realize the steady-state posture 
that will likely be necessary to win the global war on terrorism. I 
believe that the SOF growth prescribed in the 2006 QDR is sufficient, 
but, if I am confirmed, and I determine at some point that additional 
SOF growth is required, I will consult with Congress. The most likely 
area for further growth in SOF capacity is in air capabilities.
    Question. In your view, how can the size of SOFs be increased, 
while also maintaining the rigorous recruiting and training standards 
for special operators?
    Answer. The 2006 QDR and the Downing Report focused significant 
attention on strategies for growing SOF, while assuring that high 
quality is maintained. This included ensuring that sufficient resources 
are devoted to the institutional training base to accommodate 
substantially increased throughput; exploiting the potential of direct 
entry enlistment into Special Forces via the 18X program; ensuring that 
Ranger units, who, in addition to providing critical capabilities, also 
serve as a core recruiting base for Special Forces and Special Mission 
Unit (SMU) personnel, are grown in proportion to the desired increase 
in those units; and redesigning training programs to achieve greater 
yield while maintaining quality. The Department's classified SMUs, 
which are among the most difficult parts of the force to grow, given 
their very low selection yield and the extensive training and 
experience that is required to produce a successful operator, have 
grown substantially since their inception, despite doubts that it could 
be done, and are prescribed to grow substantially more as we continue 
to shift from a reactive to a proactive CT force. SMU growth has been 
accomplished without substantial dilution of quality.
    To achieve the SOF growth prescribed by the QDR and develop and 
maintain the intelligence capabilities and ability to operate in 
politically sensitive and denied areas that we require for the global 
war on terror, we must find innovative ways to retain experienced SOF. 
The decline in the experience level of the force must be reversed. This 
is challenge that SOF has in common with the National Clandestine 
Service, which is also expanding its ranks substantially, and, as a 
consequence, is seeing its experience levels decline. If confirmed, I 
will work with Congress, U.S. SOCOM, the Services, and others in DOD to 
achieve the SOF growth objectives of the 2006 QDR while maintaining the 
high standards expected of SOF.

          STRATEGIC COMMUNICATIONS AND INFORMATION OPERATIONS

    Question. What is your definition of strategic communications and 
information operations, and what is the relationship between them?
    Answer. Strategic communications are focused U.S. Government 
communication processes and efforts to understand and engage key 
audiences. The goal is to create, strengthen, or preserve favorable 
conditions to advance national interests. Strategic communications is 
an overt instrument.
    Information operations are the integrated employment of various 
techniques, including computer network operations, to influence or 
disrupt adversarial decision making, capabilities and operations while 
protecting our own. Information operations can be overt or covert. If 
confirmed I will assess these issues and be happy to discuss them in 
more detail in a closed session.
    Information operations and strategic communications must be 
complementary and coordinated.
    Question. What role do you envision for SOCOM in overall U.S. 
strategic communications and in U.S. information operations?
    Answer. I see U.S. SOCOM playing a vital role in implementing 
strategic communication plans and supporting the Geographic Combatant 
Commanders' efforts to counter violent extremists around the world. 
U.S. SOCOM also provides information operations capabilities, which if 
confirmed, I will be happy to discuss in more detail in a closed 
session.
    Question. Under what circumstances would the Commander, SOCOM, 
conduct information operations as a supported COCOM?
    Answer. As the supported COCOM for planning and synchronizing the 
global war on terror, U.S. SOCOM guides collaborative planning, 
coordination, and when directed, execution of information operations. I 
can envision U.S. SOCOM leading the execution of information operations 
to support surgical, limited duration, counterterrorism, and other IW 
missions.

                     MARINE CORPS SPECIAL OPERATORS

    Question. What do you believe should be the appropriate 
relationship between the Marine Corps and SOCOM?
    Answer. I believe that U.S. SOCOM should develop a relationship 
with the Marine Corps similar to the relationship that it has with the 
Army, Air Force, and Navy.
    U.S. SOCOM, in collaboration with ASD(SO/LIC&IC), should work 
closely with the Department of the Navy and the Marine Corps to 
coordinate the title 10, U.S.C. ``Service like'' responsibilities of 
U.S. SOCOM for the Marine Corps component.
    Question. Do you believe that marines should be ``SOF for life,'' 
just as Army SOFs
    Answer. I do not believe we have had enough experience yet with the 
Marine Corps component of SOF to fully answer this question, but the 
Department's experience with SOF from the other Services certainly 
suggests that there should be a strong bias towards ``SOF for life.'' 
The Marine Corps are organized differently than Special Forces but they 
share some of the same missions. Unlike Special Forces, however, there 
is not a SOF unique military specialty for the Marine component, at 
least not at this time. Current assignment policies for the Marine 
Corps component envisions that individuals will rotate between SOF and 
regular Marine Corps assignments. If confirmed, this is an issue that I 
will examine closely in collaboration with the Marine Corps and U.S. 
SOCOM.
    Question. What can be done to improve the training of marines in 
the Marine Corps Special Operations units to ensure that they possess 
the language capabilities and cultural awareness that are needed for 
counterterrorism and training missions? The Marine Corps already is 
leading the other Services in providing regional and cultural expertise 
to their Active Force. In addition, the marines make available web-
based training, distance learning and other tools, putting them in a 
strong starting position to meet the language capability and cultural 
awareness demands of special operations missions. If confirmed, I will 
take a close look at what the Marine Corps has done and see how their 
efforts can be expanded and how the other Services, and U.S. SOCOM, can 
employ their learning tools.

                      SPECIAL OPERATIONS MISSIONS

    Question. What current missions, if any, do you believe can and 
should be divested by SOCOM, and why?
    Answer. I am aware that, as a follow-up to the 2006 QDR, the 
Department is assessing the capability and capacity of the general-
purpose forces to conduct counterinsurgency operations and train, 
equip, and advise large numbers of foreign security forces. This is one 
candidate area for limited SOF divestment. A GPF capability to train, 
equip and advise large numbers of foreign security forces could allow 
SOF to focus on more SOF-unique and critical missions. SOF must 
maintain a very robust train, equip, and advise foreign security forces 
capability, however, to conduct operations in politically-sensitive 
environments, to ensure SOF access for other SOF activities, and to 
train, equip and advise irregular forces. The proper balance between 
SOF and GPF in counterinsurgency operations is very much situation-
dependent.
    Question. Are there any additional missions that you believe SOCOM 
should assume, and, if so, what are they and why do you advocate adding 
them?
    Answer. I do not currently foresee any additional missions that 
U.S. SOCOM should assume. I believe however, that SOF-led approaches to 
counterinsurgency are worth exploring. Counterinsurgency operations 
conducted by the United States will, more often than not, be conducted 
indirectly. SOF, and in particular its SF units, specialize in the 
indirect approach. I believe that employing unconventional warfare 
against non-state actors holds considerable promise as an expanded U.S. 
SOCOM mission area. This approach could allow SOF to access areas which 
would otherwise be denied. I believe that clandestine intelligence 
operations are an area of possible mission growth for SOF. The global 
war on terrorism has placed a premium on developing ``ruggedized'' case 
officers, which SOF and U.S. SOCOM are well equipped to provide. I 
strongly believe, however, covert action should remain the sole 
responsibility of the Central Intelligence Agency. If confirmed, I look 
forward to discussing this issue in greater depth in a closed session 
with the committee.
    Question. What can be done to ensure that SOF missions with medium- 
and long-term impact, such as unconventional warfare and foreign 
internal defense, receive as much emphasis and appropriate funding as 
direct action?
    Answer. Counterterrorist capabilities, both proactive and reactive, 
counterproliferation of WMD capabilities, and clandestine operations 
capabilities represent a critical national asset, and must be resourced 
accordingly. U.S. SOCOM's indirect capabilities, however, are 
increasingly central to the global war on terrorism. While the 
resources devoted to U.S. SOCOM's indirect capabilities have increased 
substantially since the terrorist attacks of September 11, 2001, this 
part of the portfolio remains significantly under-resourced. Indirect 
capabilities are underresourced, in my judgment, at both the Service 
and U.S. SOCOM levels. Resourcing U.S. SOCOM's direct and indirect 
capabilities should not, however, be a zero-sum game. While resources 
devoted to U.S. SOCOM's indirect capabilities should be significantly 
increased, resources should not simply be shifted from direct side to 
the indirect. U.S. SOCOM's direct capabilities benefit immensely in the 
allocation of resources from their designation as special mission 
units, and their inclusion in a national mission force, sub-unified 
command. Owing to their critical importance and command advantage, U.S. 
SOCOM's direct capabilities also produce the preponderance of SOF 
officers selected for high command. This could lead to an imbalance in 
strategy. I do not believe, however, that there is such an imbalance 
currently. The dominant approach in the global war on terrorism is 
indirect, and this is recognized by U.S. SOCOM. The Commander, U.S. 
SOCOM, moreover, has also recently selected an officer who specializes 
in the indirect approach to become U.S. SOCOM's new Director of the 
Center for Special Operations.
    Assuring a proper balance between direct and indirect capabilities 
will require additional resources devoted to indirect side, and some 
believe the creation of new organizational and command arrangements as 
well. An increase in resources could be facilitated by having the 
Services designate at least some of U.S. SOCOM's indirect capabilities 
as top priority special mission units on par with special mission units 
that specialize in direct capabilities. Some believe the command 
imbalance could be addressed by creating an equivalent three-star 
indirect operational command--a Joint Unconventional Warfare Command 
(JUWC). Under this proposal, indirect capabilities from across U.S. 
SOCOM's Service components could be operationally assigned to this new 
command. This would give U.S. SOCOM and the GCCs two operational 
component commands instead of just one, with the Center for Special 
Operations and the Theater SOCOM functioning as integrated planners and 
synchronizers and force employers. This could increase the likelihood 
that SOF officers who specialize in the indirect approach would have as 
equal a shot at high command as their direct action counterparts.
    SOF manpower, however, is a scarce resource. Creating new 
headquarters should be done only if absolutely necessary, and then in 
the most efficient manner possible. One approach that would meet at 
least the latter criterion would be to convert an existing service 
force provider headquarters into a provisional JUWC. Those who favor 
this approach suggest that the Army's Special Forces Command could be a 
candidate for this role.
    I believe the ideas described above merit further study. If 
confirmed, I will work with the Commander, U.S. SOCOM and the senior 
defense civilian leadership to achieve an appropriate balance between 
indirect and direct capabilities.

                      FUTURE OF SPECIAL OPERATIONS

    Question. Many believe that the principal threats of the 21st 
century will be asymmetric, unconventional ones, often emanating from 
non-state actors.
    Since asymmetric, unconventional threats must now be confronted by 
our conventional forces, what is the future role of Special Operations? 
What special threats must SOCOM be focused on for the future?
    Answer. Irregular warfare (IW) will likely be the dominant form of 
conflict for the foreseeable future. Both SOF and conventional forces 
must place increased emphasis on it. Conventional forces--rebalanced 
toward greater IW capabilities--and SOF are complementary capabilities, 
not competitive.
    Expanding the capability and capacity of conventional forces for 
certain IW missions (e.g., COIN, Stability Operations, and FID) will 
free up SOF to take on the more demanding and specialized tasks, 
including:

        <bullet> Long-duration, indirect and clandestine operations in 
        politically sensitive environments and denied areas;
        <bullet> Locate, tag, and track dangerous individuals and other 
        high-value targets globally; and
        <bullet> Detect, locate, and render safe WMD.

    These are core missions in the global war on terror. Additionally, 
SOF must remain prepared to conduct unconventional warfare against 
hostile states, and increase its capabilities to conduct SOF-intensive 
operations in anti-access environments.

                            LESSONS LEARNED

    Question. In your view, what have been the most significant lessons 
learned by SOFs in recent military operations, and what are the future 
operational, research and development, and procurement implications of 
these lessons?
    Answer. Operation Enduring Freedom revealed the power of 
unconventional warfare when supported by precision airpower. A clear 
implication of OEF is that national leadership now has an increasingly 
viable indirect, small ground footprint option to decisively defeat a 
hostile regime. Operation Enduring Freedom-Philippines (OEF-P) has 
shown the power of an indirect approach to counterinsurgency and 
counterterrorism as well. One implication of OEF-P is that SOF-led 
counterinsurgency concepts merit further study.
    Proactive CT operations have shown that rapidly exploiting 
intelligence to identify and strike new targets significantly increases 
the odds of operational success. These operations also have shown that 
persistent ISR is vital to success.

           DEVELOPMENT OF NEW SPECIAL OPERATIONS CAPABILITIES

    Question. If confirmed, how would you ensure that Special 
Operations capabilities are integrated into overall DOD research and 
technology development programs?
    Answer. If confirmed, I would work closely with the Director, 
Defense Research and Engineering (DDR&E) toward this end. DDR&E 
publishes a strategic plan that guides investment and management 
priorities for collective research and development programs. This plan 
helps focus Department-wide science and technology priorities, and I 
would work to include SOF capabilities and needs into those priorities. 
I would also focus on leveraging Department-wide technology 
developments.

              LANGUAGE AND CULTURAL AWARENESS CAPABILITIES

    Question. In your opinion, what is the role of technology in the 
development of on-demand language and cultural awareness capabilities 
for deployed special operators?
    Answer. Technology has a valuable role in providing these 
capabilities to our special operators. For example, we have developed 
technological solutions that allow us to provide on-demand and reach-
back translation capabilities to our deployed forces. However, there is 
no substitute for the expertise derived from personal interaction with 
those who speak the language. Language and cultural immersion programs 
are an important aspect of developing and maintaining language and 
cultural capabilities.
    Question. How should SOCOM address the erosion of language and 
cultural deficiencies caused by the disproportionate deployment of 
specialized operators to Iraq and Afghanistan?
    Answer. Iraq and Afghanistan, undoubtedly, have created a challenge 
for us to retain our language and cultural expertise in other areas.
    We can mitigate at least partially the impact of deployments to 
Iraq and Afghanistan by leveraging the web-based training, distance 
learning, and Mobile Training Teams from the Defense Language Institute 
as well as our internal special operation language and cultural 
training capabilities.

                 COUNTERDRUG/COUNTERTERRORISM MISSIONS

    Question. SOFs have been deeply involved in training forces in 
Colombia to conduct unified counterdrug-counterterrorism missions.
    In your view, what has been the success of training missions in 
Colombia?
    Answer. From my understanding, Colombia is safer today than in the 
late 1990s; kidnappings, homicides, and massacres are at the lowest 
levels in almost 20 years. By most indicators of military readiness, 
Colombia's military is also better today than at any other time in 
recent memory. Our training has helped produce a more professional and 
capable corps; they are better motivated and more conscious of their 
obligations to respect human rights.
    Question. Are these appropriate missions for U.S. SOFs?
    Answer. Yes. It is my understanding that SOF is making a major 
contribution to the success of Plan Colombia.
    Question. What, if any, benefit do unified counterdrug-
counterterrorist training missions in Colombia and counterdrug training 
missions worldwide provide to SOFs?
    Answer. In addition to the positive impact upon U.S. Government 
counternarcotics and counterterrorism efforts, SOF counterdrug and 
counterterrorism training missions in Colombia and throughout the world 
provide excellent opportunities for SOF to work with security and 
military forces of partner nations. These missions strengthen SOF 
skills such as instructor skills, language proficiency, and cultural 
immersion in real-world settings. They also facilitate the development 
of important professional and personal relationships that strengthen 
U.S. access. At the operational level, integrated counternarcotics and 
counterterrorism operations are complex contingencies that foster the 
development of SOF strategists.

                          STABILITY OPERATIONS

    Question. The office of ASD(SO/LIC) is responsible for policy and 
activities concerning stability operations, such as peacekeeping and 
humanitarian assistance.
    To your knowledge, what is the current involvement of the office of 
the ASD(SO/LIC) in the planning and conduct of stability operations in 
Afghanistan and Iraq?
    Answer. The Assistant Secretary of Defense for International 
Security Affairs and the Deputy Under Secretary of Defense for Asian 
and Pacific Security Affairs have the lead within Policy for planning 
and conducting operations in Iraq and Afghanistan, respectively. If 
confirmed, I will be the principal advisor on special operations and 
low-intensity conflict, and therefore, will work closely with my 
regional counterparts to ensure appropriate oversight of any operations 
in which SOF are employed. It is my aim, if confirmed, to significantly 
increase the contribution of OSD's capability experts in policy, 
strategy and operations. I believe that regional-functional operational 
collaboration can produce vastly improved policy oversight. I also will 
work to ensure that U.S. forces have the capabilities and capacity to 
conduct stability operations in general; to assess feedback from 
operations in Iraq, Afghanistan and elsewhere to identify ``lessons 
learned;'' and to use that feedback to improve our future ability to 
conduct stability operations.
    I understand that SO/LIC is currently working to improve 
coordination with interagency partners to help ensure greater 
effectiveness of the U.S. Government in planning and conducting 
stability operations. If confirmed, I plan to continue our efforts in 
this area.
    Question. Who has the principal responsibility within the 
Department for the planning and conduct of stability operations in 
these nations?
    Answer. The Office of the Under Secretary of Defense for Policy 
supervises the planning and conduct of stability operations in both 
Afghanistan and Iraq, providing policy-level oversight and 
coordination. The Joint Staff, in particular the Directorate for 
Strategic Plans and Policies (J-5), also plays a critical role in 
developing plans and operational guidance for the relevant combatant 
commands. Within SO/LIC, the Stability Operations Capabilities office 
supports relevant offices in Policy, including the regional desks and 
the Offices of Coalition Affairs and Partnership Strategy, as subject-
matter experts on stability operations and by facilitating interagency 
coordination with respect to stability operations-related issues.
    Question. If confirmed, what role would you play in the planning 
and conduct of ongoing and future stability operations? What are the 
major challenges in this area and how would you address them?
    Answer. Under the policy reorganization, the ASD(SO/LIC&IC) is 
responsible for planning for stability operations, and developing 
capabilities to conduct them. Among the major challenges that need to 
be addressed are how to transition from the direct to the indirect 
approach, and how to improve our ability to produce capable and 
reliable foreign police forces. If confirmed, I would develop plans to 
address these and other challenges in coordination with the regional 
ASDs.

               PSYCHOLOGICAL OPERATIONS AND CIVIL AFFAIRS

    Question. Psychological operations (PSYOPs) and Civil Affairs (CA) 
have played prominent roles in recent military operations, from the 
Balkans to Afghanistan to Iraq. Most U.S. PSYOPs and CA units and 
capabilities are in our Reserve components.
    What role does the ASD(SO/LIC) have in providing oversight for 
PSYOPs and CA missions?
    Answer. As the principal civilian advisor to the Secretary of 
Defense for DOD PSYOPs and CA, ASD(SO/LIC&IC) provides oversight of 
PSYOPs and CA policy and planning. ASD(SO/LIC&IC) reviews all request 
for forces for PSYOPs/CA assets and makes recommendations through the 
Under Secretary of Defense for Policy. Combatant command authority for 
U.S. Army, U.S. Navy, U.S. Marine Corps and U.S. SOCOM PSYOPs and CA 
assets are split between U.S. SOCOM and U.S. JFCOM. If confirmed, I 
will have policy oversight of both U.S. SOCOM and U.S. JFCOM, which 
will allow me to identify policy and programming actions to better 
support ongoing operations in these areas.
    Question. In your view, do the Armed Forces have sufficient 
personnel and other assets to conduct the range of PSYOPs and CA 
missions being asked of them?
    Answer. DOD is in the process of expanding CA and PSYOP structure 
in both the Active and Reserve components of the Army, Navy, and Marine 
Corps. I also understand that the Joint Staff will conduct an analysis 
of CA/PSYOP shortfalls within a study of irregular warfare in time for 
the next POM. If confirmed, I also will review the CA and PSYOP 
structure and work with the Joint Staff, the Services, and the 
combatant commands to determine the shortfalls and how best to address 
them.
    Question. In your view, is the planned mix of Active and Reserve 
components adequate in these areas?
    Answer. No. I believe that we need a larger Active-Duty Civil 
Affairs force. This will allow the Reserve force to focus more directly 
on providing functional specialists (Government, Economics, and Public 
Facilities) that leverage the civilian skills within our Reserve 
components.
    Question. What is the current and future impact on the training, 
equipping, and promotion and individual assignments of CA reservists?
    Answer. Our Reserve Civil Affairs force is under considerable 
stress. The Army's Active CA component will focus on support for 
Special Operations, while the Army's Reserve component will focus on 
support to conventional operations. I understand that the Army is 
reviewing the impact of the growth of CA on the training pipeline and 
that USN and USMC are collaborating on their respective CA training 
requirements. I do not know what the impact will be regarding the 
assignments of CA reservists, but if confirmed, I will give attention 
to this issue as we review how to develop adequate CA capabilities to 
meet future challenges.

                          TRAINING CAPABILITY

    Question. The ability of special forces personnel to train 
realistically is of vital importance.
    What capabilities do you consider most important for effective 
training of special forces personnel?
    Answer. Extended and advanced training is central to special 
operations proficiency. Some SOF personnel, for example, require 
constant advanced training, made possible only by real world exercises 
and very sophisticated facilities, and access to the most advanced 
training programs.
    The most challenging task for SF personnel to perform is 
unconventional warfare. Cultural and societal knowledge and language 
and interpersonal skills are essential. Personalized learning 
integrated into other SF training, immersion programs, and distance 
learning tools are important, but language proficiency remains a very 
challenging area for SF. Nothing replaces the fluency gained from 
extended operational experience in a foreign language environment. Some 
UW operations require advanced special operations training. Being able 
to conduct UW at the operational level of war is increasingly 
imperative, and improving our capabilities in this area will require 
advanced SOF education. Maintaining SF combat skills requires 
significant resources. Since UW is one of the hardest tasks to 
simulate, significant operational experience is usually required to 
gain mastery. Valuable UW experience might be gained by increasing the 
number of SOF personnel who are detailed to other government agencies.
    Question. What improvements are necessary, in your view, to enhance 
training for special operations personnel?
    Answer. Language proficiency is an area of particular concern. 
Improving SOF proficiency will require substantial classroom 
instruction but, more importantly, also regional immersion training. 
Immersion training could be acquired by embedding officers and NCOs in 
foreign military organizations.
    A more robust program to train and educate SOF strategists should 
also be studied.
    Question. What, if any, training benefits accrue to U.S. SOFs from 
training foreign military personnel?
    Answer. SOF personnel gain long-term benefits from working with and 
building relations with the foreign military personnel that they train. 
Such activities augment SOF's language capabilities and cultural 
awareness. By training foreign forces, U.S. SOF personnel also learn 
their doctrine, tactics, and operating procedures.

       TRAINING AND EQUIPPING INDIGENOUS FORCES FIGHTING WITH SOF

    Question. In section 1208 of the National Defense Authorization Act 
for Fiscal Year 2005, Congress gave SOCOM a 2-year authority to train 
and equip indigenous forces fighting alongside U.S. special operators. 
This year the Department is seeking a reauthorization.
    How has SOCOM used this authority, and to what effect? If 
confirmed, how and where would you use this authority?
    Answer. It is my understanding that U.S. SOCOM has obligated funds 
to train and equip foreign or irregular forces, groups and individuals 
engaged in supporting ongoing operations by U.S. SOFs. The agility to 
apply resources provided by this authority has had a meaningful effect 
on recent operations by allowing the command to fund activities in all 
five Geographic Commanders' areas of responsibility--activities that 
otherwise would likely have remained unfunded. If confirmed, in 
addition to continuing current efforts, I would encourage the COCOMs to 
use this tool to expand their UW activities against hostile non-state 
actor targets.

                     ADVANCED SEAL DELIVERY SYSTEM

    Question. To date, about $885 million has been spent on developing 
the Advanced SEAL Delivery System (ASDS). The fiscal year 2008 request 
for ASDS is $10.6 million for procurement and $20.3 million for 
research and development.
    In your view, can SOCOM afford to have more than one ASDS? How long 
will it take to ensure that there is an operational ASDS?
    Answer. It is my understanding that ASDS is available for limited 
operations and select taskings now. The ASDS will provide an important 
denied-area maritime clandestine infiltration and exfiltration 
capability. If confirmed, I will work closely with U.S. SOCOM to 
determine the number of ASDS hulls required.

                         TREATMENT OF DETAINEES

    Question. Do you agree with the policy set forth in the July 7, 
2006, memorandum issued by Deputy Secretary of Defense England stating 
that all relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes. I believe that as a matter of policy, the Department 
was already in compliance with the requirements of Common Article 3, 
and that the Deputy Secretary's memo was sent to ensure that as a 
matter of law, all DOD components understood that Common Article 3 was 
the standard following the Supreme Court's decision in Hamdan v. 
Rumsfeld.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Do you believe it is consistent with effective counterinsurgency 
operations for U.S. forces to comply fully with the requirements of 
Common Article 3 of the Geneva Conventions?
    Answer. Yes. I support the standards and believe that they 
incorporate the lessons learned in prior conflicts as well as have 
adapted to the enemies we face in the war on terrorism. I understand 
Congress was fully briefed as to the new interrogation procedures. The 
military intelligence community has stated that they believe that the 
procedures outlined in FM 2-22.3, including Common Article 3 treatment, 
provide the military with the best method for extracting timely 
operational intelligence.
    Question. If confirmed, how would you ensure that U.S. forces in 
Iraq and Afghanistan comply with the standards in the Army Field 
Manual, the DOD Directive, and applicable requirements of U.S. and 
international law regarding detention and interrogation operations?
    Answer. If confirmed as the ASD(SO/LIC&IC), I will not have direct 
responsibility for the implementation of detainee operations policy. 
The office of Detainee Affairs, and the Deputy Assistant Secretary of 
Detainee Affairs, fall under the ASD(GSA), a position that is currently 
vacant. The Acting, Mr. Benkert, has responsibility within policy for 
the Office of Detainee Affairs. The Office of Detainee Affairs is 
important in this question as it is the office primarily charged with 
development of policy and conducting policy oversight on detainee 
matters, per the DOD Directive, and Secretary Rumsfeld's July 2006 
memorandum.
    To the extent that my responsibilities for special operations 
involve detention operations, I will ensure that our policies and 
procedures are closely coordinated with broader detainee policy. I also 
will ensure that guidance that we develop on detainee issues is 
consistent with broader detention policies.
    Question. The DOD Inspector General recently released a report on 
detainee abuse noting reports of detainee abuse by a SMU Task Force in 
Iraq that took place before the publicized behaviors at Abu Ghraib came 
to light. Additionally, the report noted that personnel in this SMU 
Task Force introduced battlefield interrogation techniques that 
included abusive tactics such as sleep deprivation, stress positions, 
the use of dogs, and the use of Survival Escape Resistance and Evasion 
techniques--techniques designed specifically to imitate tactics by a 
country that does not comply with Geneva.
    Do you believe that such techniques contribute and are appropriate 
in the struggle against terrorism?
    Answer. I am not directly familiar with this report, however, I 
believe that all U.S. Armed Forces have to comply with applicable law 
and policy regarding the treatment of detainees.
    Question. What is your understanding about how battlefield 
interrogation techniques by such units were authorized and monitored?
    Answer. I am not directly familiar with what policies or procedures 
were in force at the time that these SMUs operated. I believe, however, 
that DOD policy would have required that all interrogation tactics 
conform with those described in Army Field Manual 34-52 and any 
applicable specific rules of engagement issued by the Secretary of 
Defense.
    Question. If confirmed, what steps would you take to ensure that 
our SOFs understand the necessity of complying with the Geneva 
Conventions when detaining and interrogating those individuals under 
U.S. control?
    Answer. I would ensure that all policies and guidance that we 
develop for SOF are consistent with broader detainee policy, and would 
coordinate with the Office of Detainee Affairs on policy guidance that 
I believed would affect detainee treatment.
    Question. What steps would you take to ensure that those foreign 
forces trained by our SOFs understand the same necessity?
    Answer. As part of such training, our SOFs always indicate that 
further military assistance and training is predicated on such foreign 
forces adherence to the law of war.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes, I will appear before this committee and other 
appropriate committees of Congress when called upon to do so.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the ASD(SO/LIC)?
    Answer. Yes, I will provide this committee or members of this 
committee accurate and appropriate information to the best of my 
ability when called upon to do so.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes, I will provide the necessary information to this 
committee and other appropriate committees and their staff when asked 
to do so.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes, I will provide the committee the necessary documents 
when appropriate and will consult with the committee regarding the 
basis for any good faith delay or denial in providing documents.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Daniel K. Akaka

                           ARMING INSURGENTS

    1. Senator Akaka. Mr. Vickers, it has been reported in the media 
recently that we are arming Sunni insurgents so that they can fight al 
Qaeda in Iraq (AQI). Do you believe this is a good policy? If so, how 
are we ensuring that these weapons are not turned against us either 
during the battle with AQI or after the battle is over?
    Mr. Vickers. Enlisting Sunni tribes in the fight against AQI 
represents a major strategic success. Defeating AQI is a principal U.S. 
war aim, and the Sunni population and its tribal militias are the 
principal instruments through which the conflict must and will be 
fought. Enlisting former Sunni insurgents in the fight against AQI 
reduces, though by no means does it eliminate, risk to U.S. forces in 
the near-term, and it better positions the U.S. to secure its interests 
in Iraq over the longer-term. I support a limited policy of providing 
support to former Sunni insurgents in the fight against AQI. It would 
be preferable, in an ideal world, to not have armed militias, but not 
having them could result in much less effective operations against AQI 
in present-day Iraq. To be sure, providing support to former Sunni 
insurgents is not without risk. There is always the risk that they 
could use their weapons to attack U.S. forces, or they could provide 
weapons to AQI. I believe these risks are manageable, and that various 
measures--the provision of advisors and tracking of weapons--can be 
adopted to ensure compliance. I do not believe, moreover, that the 
policy of providing limited small arms support to Sunni militias who 
join the fight against AQI will have a material adverse impact on the 
future stability of Iraq, or on strategic balances among sectarian 
groups in the event of a full-blown civil war in Iraq. Providing 
limited support to Sunni tribesmen and former Sunni insurgents can, 
however, tip the strategic balance against AQI, and secure the 
necessary cooperation of the Sunni population. Over time, it is 
imperative that Sunni militias be incorporated into legally constituted 
security forces.

    2. Senator Akaka. Mr. Vickers, how will we make sure that the 
weapons are returned or destroyed when they are not needed anymore?
    Mr. Vickers. The Department of Defense controls and accounts for 
defense articles and services provided to foreign nationals (both 
permanent and temporary transfers) by issuing guidance consistent with 
national security objectives and U.S. foreign policy. The goal of this 
guidance is to ensure all forces understand and comply with U.S. 
statutory requirements and DOD policies that govern U.S. international 
transfers of defense articles and services. Furthermore, the guidance 
issued outlines operational limitations and provisos, which are 
designed to make certain all defense articles and services transferred 
to foreign nationals, are accounted for and monitored throughout all 
phases of operations. Weapons are issued as required for specific 
duties and those not permanently transferred are returned when units 
are demobilized.

    3. Senator Akaka. Mr. Vickers, how is our support to the insurgents 
perceived by the Kurds and the Shia?
    Mr. Vickers. Senior Kurdish leaders have expressed limited concern 
over additional armed elements threatening the security of Iraq. 
Kurdish leaders acknowledge the often hostile forces operating in the 
region, but understand that they must balance Kurdish goals of 
independence with U.S. aims to stabilize Iraq and defeat AQI. I think 
that arming insurgents operating in central and western Iraq poses a 
minimal threat to Kurdish control in northern Iraq. Senior Shia Iraqi 
government leaders have expressed skepticism about coalition forces 
arming insurgent groups as a way of fighting AQI, and they are 
concerned that arming the insurgents would create new militias that 
would eventually add to Iraqi security challenges. Iraqi Prime Minister 
Maliki protested, and insisted that those bearing arms without 
permission would be considered militias and would be dealt with as 
such. Shia leaders have predicted that arming insurgents could destroy 
all that has been achieved and that arming may promote added sectarian 
violence. Providing limited small arms support to Sunni militias, I 
believe, poses a minimal threat to Shia-populated regions, but it is 
also important that we continue to work with the Shia leaders to 
assuage their concerns.

                      CHANGE IN MILITARY STRATEGY

    4. Senator Akaka. Mr. Vickers, what would be the impact, in your 
opinion, if we were to change our military strategy in Iraq so that our 
troops would only be used to conduct offensive operations against 
terrorist organizations (i.e., AQI, etc.), and all other Iraqi security 
was immediately turned over to Iraqi security forces? The advantage in 
doing this is that our troops would still be in the theater (although 
probably at reduced levels) and engaging those organizations that were 
deliberately inflaming sectarian strife, but would not be trying to 
maintain security throughout Iraq. Of course, they would be able to 
defend themselves, if attacked, and they could re-engage if the 
security situation showed signs of catastrophic failure. Please provide 
your opinion on how a strategy change like this might impact the 
conflict in Iraq.
    Mr. Vickers. The purpose of the temporary U.S. surge in operations 
in Iraq is to reduce threats to the government and people of Iraq while 
continuing to strengthen Iraqi capability and capacity to provide for 
Iraq's security, and to create the conditions that would facilitate 
political reconciliation of sectarian elements. While it is too soon to 
tell if the surge in operations will achieve these objectives, it is 
manifestly clear that Iraqis must ultimately be responsible for their 
own security, and that U.S. forces must shift to a more limited and 
indirect role. A premature shift to such a role, however, would carry 
significant risk that the security situation in Iraq will deteriorate 
substantially, with the break up of Iraq into sectarian successor 
states a real possibility. The political and security situation could 
deteriorate to such an extent that continued offensive operations 
against terrorist organizations were placed in jeopardy. That said, 
this transition must occur, and it is imperative, however events in 
Iraq evolve, that the U.S. remain engaged, albeit in a more limited and 
indirect way, if U.S. interests are to be secured. As a hedge against 
Iraq's uncertain future, it appears increasingly evident that the U.S. 
needs to pursue a two-track policy, which, while maintaining strong 
support for the central Iraqi government, builds and maintains ties 
with each major sectarian community. It is essential that U.S. forces 
remain engaged in the training and development of Iraqi Security 
Forces. At the tactical level, many of the Iraqi units have proven 
marginally capable. However, at higher echelons it is apparent that the 
support structure is not yet in place to enable self-sufficiency. 
Therefore, without the support of U.S. forces, the ISF would 
potentially fail in their security mission.

                         PAKISTAN AND AL QAEDA

    5. Senator Akaka. Mr. Vickers, it is clear that the Pakistani 
government has not brought its full resources to bear in eliminating al 
Qaeda's safe haven in Pakistan, and that they are not likely to in the 
future. What are your views on the current situation in Pakistan?
    Mr. Vickers. Pakistan, along with Saudi Arabia, is a vital ally in 
the global war on terrorism. If either country were to fall to radical 
Islamists, the implications for U.S. security would be dire. The 
situation in Pakistan is increasingly worrisome. The Islamist threat to 
the government is growing, and al Qaeda has established numerous safe 
havens, not just in western Pakistan, but throughout the country. It is 
clear that that the September agreement, which suspended Pakistani Army 
operations in the tribal areas, has failed to achieve its objectives. 
It is imperative, in my view, that the U.S. increase its support for 
the Government of Pakistan, including, but not limited to, in the 
tribal areas of western Pakistan. Given the increasingly volatile 
political situation, U.S. support must remain indirect and clandestine. 
I believe the Government of Pakistan will strongly support such an 
approach.

    6. Senator Akaka. Mr. Vickers, what strategies and policies do you 
believe we should be using to capture Osama bin Laden?
    Mr. Vickers. I believe the appropriate strategies are indirect and 
clandestine ones. Our aim must be to assist the Government of Pakistan 
is winning over the allegiance of the local population without further 
inflaming a volatile political situation. Manhunting is an 
extraordinarily difficult task, but if we increase the intensity of our 
indirect and clandestine approach, we will eventually eliminate al 
Qaeda's safe havens in western Pakistan and increase the likelihood 
that we will succeed in killing or capturing al Qaeda's senior 
leadership

                      FIGHTING TERRORISM STRATEGY

    7. Senator Akaka. Mr. Vickers, I believe that there are many 
potential underlying causes that can make a person susceptible to being 
recruited to be a terrorist. Our overall national strategy (according 
to U.S. Special Operations Command (SOCOM)'s 2007 Posture Statement) 
includes attacking the roots of terrorism. It's not clear how 
comprehensive our strategy is for doing this. What strategies and 
policies are currently being utilized in the global war on terror to 
attack the roots of terrorism?
    Mr. Vickers. There is no one reason why people turn to terrorism. 
Therefore, we as a government must develop a strategy that addresses 
the manifold underlying causes of why people turn to terrorism and this 
can only be done through the development of a whole of government 
approach. For example, the Department of Defense continues to work with 
other government agencies to counter extreme ideologies and provide 
foreign assistance more effectively. Such efforts intend to develop 
viable ideological, political, and economic alternatives to the 
extremist ideology that breeds terrorism.
    The recent operations in the Philippines could provide a model for 
future operations that seek to reduce terrorist safe havens and 
recruiting grounds. Our approach in the Philippines has addressed the 
terrorist problem from multiple angles. We have worked indirectly as 
advisors to the Philippine government forces as they continue to 
conduct operations against terrorist organizations. At the same time, 
we have worked with local governments and nongovernmental organizations 
(NGOs) to develop the economic and social infrastructure to strengthen 
stability and thereby reduce the attractiveness of terrorism. From the 
beginning, locals have been involved in the construction and rebuilding 
efforts and, as a result, they have ``buy in'' to the success of the 
country's future well-being, which helps drain the pool of potential 
terrorists. We might look to apply the OIF-Philippines approach to 
other terrorist safe havens.
    We must move more quickly to integrate the tools of various U.S. 
Government (USG) agencies so that we can apply a more comprehensive 
approach to attacking the multiple roots of terrorism. There are 
ongoing efforts to develop a USG-wide approach to helping our allies 
and partners and, if confirmed, I look forward to engaging other 
agencies in this endeavor.

    8. Senator Akaka. Mr. Vickers, do you have recommendations for 
additional strategies or policies that could be used?
    Mr. Vickers. See response to question 7.

    9. Senator Akaka. Mr. Vickers, it seems that poverty, or a poor 
economy, could also be a factor in creating breeding grounds for 
terrorists. What can we do to minimize this factor, especially in 
poorer regions such as in Africa?
    Mr. Vickers. A poor economy weakens governance capacity and causes 
social instability, creating conditions ripe for terrorist recruitment 
and sustenance. Our efforts in Africa must include a combination of 
economic, military, and political aid to help African states better 
govern their areas and reduce the threat posed by terrorist and other 
illicit organizations.
    The Trans Sahara Counterterrorism Initiative (TSCTI), for example, 
focuses the capabilities of DOD, State, and USAID on defeating 
terrorism and creating an environment inhospitable to it in North 
Africa. While DOD focuses on developing the capabilities of North 
African partner nation militaries, State, USAID, and other U.S. 
Government agencies employ programs to promote good governance, provide 
humanitarian assistance, improve economic infrastructure, and enable 
the countries to assert tighter control over their territories. 
Although relatively nascent, this effort has been successful and we 
should look to continue to build on it to address other areas on the 
continent.
                                 ______
                                 
                Questions Submitted by Senator Evan Bayh

                            UAV REQUIREMENTS

    10. Senator Bayh. Mr. Vickers, according to testimony by Vice 
Admiral Olson in April, SOCOM is unable to fulfill its standard medium 
altitude unmanned aerial vehicle (UAV) orbit requirement. It is my 
understanding that SOCOM's long-term budget does not contain enough 
funding to manage this gap in the short-term. If so, how will SOCOM 
address this unacceptable budgetary and requirement shortfall?
    Mr. Vickers. SOCOM relies on Service-provided and SOF-unique UAVs 
to meet its airborne intelligence, surveillance, and reconnaissance 
needs. As Vice Admiral Olson has testified, SOCOM's ability to generate 
UAV orbits is well short of actual requirements. If confirmed, I would 
recommend a thorough review of UAV requirements to identify the scope 
and volume of UAV needs to meet key operational and strategic goals. 
Such a review would help prioritize the availability of assets to meet 
our most pressing needs in the near to mid-term while ensuring that 
near-term needs are properly balanced against longer-term ones. Some 
operations, for example, will require the ability to clandestinely 
penetrate denied air space, while others will need the ability to 
maintain persistent surveillance over multiple wide areas 
simultaneously. A portfolio of UAV capabilities will likely be 
required, along with additional capacity. A thorough review of UAV 
requirements will help ensure that DOD allocates sufficient resources 
to this critical capability area.

    11. Senator Bayh. Mr. Vickers, what strategy would you employ to 
ensure that not only enough UAVs are in the air, but also have the 
communication infrastructure, logistical chain, and pilot/operator 
availability needed to meet this SOCOM requirement?
    Mr. Vickers. UAVs are indeed only one part of a system that 
includes communications infrastructure, logistical support, and trained 
operators. Each of these components is critical to system performance. 
Bandwidth constraints, for example, affect operational control of 
flight systems, while the availability of trained operators and command 
and control systems affect mission-capable rates. If confirmed, I would 
work closely with the USD(I) and others to explore options within each 
component of the UAV system to ensure that the Department and SOCOM 
achieve maximum performance from our UAV assets
                                 ______
                                 
    [The nomination reference of Michael G. Vickers follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 10, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Michael G. Vickers, of California, to be an Assistant Secretary of 
Defense, vice Thomas W. O'Connell.
                                 ______
                                 
    [The biographical sketch of Michael G. Vickers, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

               Biographical Sketch of Michael G. Vickers

    Michael G. (Mike) Vickers is Senior Vice President, Strategic 
Studies, at the Center for Strategic and Budgetary Assessments (CSBA), 
a non-partisan, independent public policy research institute located in 
Washington, DC. He directs a broad-based strategic studies program, 
funded by the U.S. Government, the U.S. defense industry, and private 
foundations. He provides regular commentary on national security, 
defense, and intelligence issues in the national broadcast and print 
media. His most recent CSBA monograph is ``The Revolution in War'' 
(2004).
    In mid-2006, Mr. Vickers was asked to provide advice on Iraq 
strategy to President Bush and his war cabinet. On May 30, Mr. Vickers 
met with President Bush in the Oval Office to provide confidential 
advice on the way forward in Iraq. On June 12, Mr. Vickers met again 
with President Bush and his war cabinet at Camp David, Maryland. Mr. 
Vickers' Memoranda to the President have been circulated at the highest 
levels of the U.S. national security establishment.
    Mr. Vickers served as a senior adviser to the Office of the 
Secretary of Defense for the 2005-2006 Quadrennial Defense Review 
(QDR), the Defense Department's major, 4-year review of strategy, 
capabilities, and force structure. He was involved extensively in the 
QDR, from defining its four focus areas and drafting the Secretary's 
Terms of Reference, to writing the final report. In addition to his 
work advising the main QDR effort, he also served as Executive Director 
for a QDR ``Red Team,'' headed by Andy Marshall, Director for Net 
Assessment, which was tasked by the Deputy Secretary to provide the 
Department's senior leadership with an alternative assessment of the 
QDR. The Red Team, which included six retired four-star officers, 
recommended major changes to the Department's capability mix, the 
majority of which were adopted. With General Wayne Downing, USA (Ret.), 
and Major General Bill Garrison, USA (Ret.), Mr. Vickers also conducted 
an independent assessment of U.S. Special Operations Forces (SOF) (The 
Downing Report) for Secretary Rumsfeld. Almost all of the 
recommendations from the Independent SOFs Assessment were subsequently 
implemented by the Department.
    From 1973 to 1986, Mr. Vickers served as an Army Special Forces 
Noncommissioned Officer, Special Forces Officer, and Central 
Intelligence Agency (CIA) Operations Officer, with operational and 
combat experience in Central America and the Caribbean, the Middle 
East, and Central Asia. His irregular warfare experience spans 
unconventional warfare, covert action, counterterrorism, 
counterinsurgency, and foreign internal defense.
    During the mid-1980s, he was the principal strategist for the 
largest covert action program in the CIA's history: the paramilitary 
operation that drove the Soviet army out of Afghanistan and played a 
major role in ending the Cold War. His Afghanistan experience is 
described in the New York Times bestseller and soon-to-be-released 
major motion picture, ``Charlie Wilson's War''. Mr. Vickers provided 
strategic and operational direction to an insurgent force of more than 
300 unit commanders, 150,000 full-time fighters, and 500,000 part-time 
fighters. He developed paramilitary force structure and training 
requirements and streamlined program logistics. He controlled an annual 
budget approaching $1 billion, and oversaw a 400 percent growth in 
program funding. He prepared policy recommendations for President 
Reagan and the National Security Council, and regularly briefed 
cognizant congressional committees on program results.
    He coordinated the efforts of more than 10 foreign governments, and 
traveled frequently to Europe and the Near and Far East to gain and 
maintain broad international support for the program. He negotiated 
several major covert materiel procurement contracts with foreign 
suppliers. For his work on the Afghanistan Covert Action Program, Mr. 
Vickers received a special promotion for exceptional performance.
    In an earlier assignment with the CIA, Mr. Vickers planned the 
clandestine intelligence and covert operations portions of a fast-
breaking rescue operation in the Caribbean. He deployed to the crisis 
site during the critical time frame, and performed operational tasks in 
a life threatening situation. Mr. Vickers received an award for heroism 
from the Director of Central Intelligence for major contributions to 
the success of the rescue mission, in another assignment, Mr. Vickers 
served as operations officer for a joint CIA-DOD counterterrorist 
operation in the Middle East. He received a commendation from the 
Director of the Defense Intelligence Agency for outstanding 
performance. Mr. Vickers also completed the Career Training Program, a 
15-month program for future Agency leaders, and the advanced 
paramilitary operations course.
    As a Special Forces Officer, Mr. Vickers commanded a one-of-a-kind, 
24-man, classified special operations unit. He played a major role in 
resolving on-scene two major incidents of international terrorism in 
Central America. He also directed contingency intelligence collection 
activities throughout Latin America, and increased coverage in U.S. 
Southern Command's area of responsibility by more than 200 percent. He 
regularly advised U.S. ambassadors, senior military commanders and 
other policy-level officials on military counterterrorist capabilities 
and crisis response options. He served on a unified command task force 
to plan contingency blockade and strike operations in Central America, 
led emergency evacuation operations in El Salvador and Suriname, and 
served as a national intelligence counterinsurgency advisor in El 
Salvador. As a second lieutenant, he graduated first in his class from 
the Special Forces Officer Course. Mr. Vickers was twice awarded the 
Meritorious Service Medal for outstanding operational performance.
    Mr. Vickers holds a Bachelor of Arts, Cum Laude, in International 
Relations from the University of Alabama, and a Master of Business 
Administration from the Wharton School of the University of 
Pennsylvania. Mr. Vickers will soon complete a doctoral dissertation on 
the Structure of Military Revolutions, fulfilling the requirements for 
the Doctor of Philosophy degree from Johns Hopkins University. During 
the 1996-1997 academic year, Mr. Vickers served as Acting Co-Director 
of the Strategic Studies Program at Johns Hopkins School of Advanced 
International Studies and taught graduate courses in Strategy and 
Policy and Transformations of War.
    Mr. Vickers holds Top Secret/Sensitive Compartmented Information 
clearances. He is married to Melana Zyla Vickers, and has five 
daughters.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Michael G. 
Vickers in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Michael G. Vickers.

    2. Position to which nominated:
    Assistant Secretary of Defense (Special Operations/Low Intensity 
Conflict and Interdependent Capabilities).

    3. Date of nomination:
    April 10, 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    April 27, 1953; Burbank, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Melana Zyla Vickers (Maiden Name: Melana Kalyna Zyla).

    7. Names and ages of children:
    Alexandra N. Vickers, 18; Natasha N. Vickers, 15; Sophia N. 
Vickers, 14; Oksana E. Vickers, 5; and Kalyna C. Vickers, 2.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Hollywood High School, 1968-1971, High School Diploma, 1971.
    University of Alabama, 1980-1983, Bachelor of Arts, 1983.
    The Wharton School, University of Pennsylvania, 1986-1988, Master 
of Business Administration, 1988.
    The Paul H. Nitze School of Advanced International Studies, Johns 
Hopkins University, 1991-1995: resident Master's and Ph.D. student, 
1996-present: nonresident Ph.D. student.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    January 2007-Present, Senior Vice President, Strategic Studies, 
Center for Strategic and Budgetary Assessments, 1667 K Street, NW, 
Suite 900, Washington, DC.
    September 1996-December 2006, Director of Strategic Studies, Center 
for Strategic and Budgetary Assessments, 1730 Rhode Island Avenue, NW, 
Suite 912, Washington, DC.
    July 1996-June 1997, Professorial Lecturer and Acting Co-Director 
of the Strategic Studies Program, The Paul H. Nitze School of Advanced 
International Studies, Johns Hopkins University, 1740 Massachusetts 
Avenue, NW, Washington, DC.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Advisory/Consultative:

          Member, Independent Special Operations Forces Assessment, 
        2005
          Member, Defense Science Board Task Force, 1996, 1998, 1999.

    Full-Time Positions:

          Operations Officer, Central Intelligence Agency, June 1983-
        March 1986.
          Commissioned Officer (2LT-CPT), United States Army, December 
        1978-June 1983 (Operational Detachment Commander and Special 
        Mission Unit Commander, 3rd Battalion, 7th Special Forces 
        Group, June 1980-June 1983).
          Noncommissioned Officer (PVT-SSG), United States Army, June 
        1973-December 1978 (Operational Detachment Weapons and 
        Demolitions Specialist, 10th Special Forces Group, 1974-1978).

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Senior Vice President, Center for Strategic and Budgetary 
Assessments, 1667 K Street, NW, Suite 900, Washington, DC.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, National Presbyterian Church, Washington, DC.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Member, Republican National Committee, 2004-Present.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Bush-Cheney 2004, $200.
    Republican National Committee, 2004, $200.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
      Alexander Hamilton Fellowship, Smith Richardson Foundation, 1993-
1997.
      Certificate of Distinction, Central Intelligence Agency, 1984.
      Bachelor of Arts, Cum Laude, University of Alabama, 1983.

    Military Awards:
    Meritorious Service Medal (2).
    Good Conduct Medal.
    National Defense Service Medal.
    Ranger Tab.
    Parachutist Badge.
    Expert Infantry Badge.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify before any duly constituted 
committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date

    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Michael G. Vickers.
    This 12th day of April, 2007.

    [The nomination of Michael G. Vickers was reported to the 
Senate by Chairman Levin on June 26, 2007, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 23, 2007.]
                              ----------                              

    [Prepared questions submitted to VADM Eric T. Olson, USN, 
by Chairman Levin prior to the hearing with answers supplied 
follows:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff (CJCS). These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. No, not at this time.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I see no need to modify the Goldwater-Nichols Act at this 
time.
    Question. Do you believe that the role of the combatant commanders 
under the Goldwater-Nichols legislation is appropriate and the policies 
and processes in existence allow that role to be fulfilled?
    Answer. Yes.
    Question. From the perspective you have gained in your previous 
assignments, do you believe that the authority and responsibility of 
the combatant commanders, in general, and the Commander, United States 
Special Operations Command (SOCOM), in particular, are appropriate?
    Answer. Yes. In general, the Commander, SOCOM's authorities and 
responsibilities are appropriate. If confirmed, I will explore whether 
modification to personnel management authorities are required.

                             RELATIONSHIPS

    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the combatant commands. Other 
sections of law and traditional practice, however, establish important 
relationships outside the chain of command. Please describe your 
understanding of the relationship of the Commander, SOCOM, to the 
following offices:
    The Under Secretaries of Defense.
    Answer. If confirmed, I would anticipate frequent interaction with 
the Under Secretaries, particularly in the development of military 
policy and the acquisition process. SOCOM maintains an especially close 
relationship with the Office of Under Secretary for Policy, who has 
primary responsibility for oversight of Special Operations Forces (SOF) 
operations and resources. Importantly, the law requires that we 
coordinate our involvement with the Office of the Secretary of Defense 
through the CJCS.
    Question. The Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict.
    Answer. While SOCOM has the principal responsibility for the 
readiness and preparation of SOF in support of the Geographic Combatant 
Commanders, SOCOM's ability to execute those missions would be greatly 
hindered without the sound policies and oversight, interagency 
coordination, and advocacy provided by the Assistant Secretary of 
Defense for Special Operations and Low-Intensity Conflict. Most of the 
Under Secretary for Policy oversight responsibilities regarding SOCOM 
are exercised through the Assistant Secretary of Defense for Special 
Operations and Low-Intensity Conflict.
    Question. The Assistant Secretary of Defense for Homeland Defense.
    Answer. I anticipate continued close coordination and cooperation 
in the determination of SOCOM's role in homeland defense and to 
determine the military support necessary to protect the United States 
and its citizens during times of national emergency.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. Commander, SOCOM, coordinates activities through the CJCS. 
This ensures the Chairman stays informed in order to execute his other 
responsibilities and also provides our command with the beneficial 
contributions of the Joint Staff. I see it as a commander's duty to 
work with and through the Chairman in the execution of Presidential and 
Secretary of Defense directed taskings.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman of the Joint Chiefs of Staff (VCJCS) is a 
member of the Joint Chiefs of Staff, and when the Chairman is absent, 
or disabled, the Vice Chairman acts in his stead. The Joint 
Requirements Oversight Council responsibilities are delegated to the 
Vice Chairman. The VCJCS also regularly represents the Chairman on the 
Interagency Deputy's Committee, the Defense Acquisition Board, and 
other boards and councils as necessary. Thus, the VCJCS plays an 
essential role for the CJCS in fulfilling his principal military 
advisor obligations. Because of these important roles, communication 
between a combatant commander and the VCJCS is as essential as it is 
with the CJCS.
    Question. The Secretaries of the Military Departments.
    Answer. The combatant commander's authority over Service 
components, including those forces assigned to him, is clear but 
requires close coordination with the Secretaries to ensure no 
infringement on those lawful responsibilities the Service Secretary 
alone may discharge.
    Question. The Service Chiefs.
    Answer. Without the full support and cooperation of the Service 
Chiefs, no combatant commander can hope to ensure the preparedness of 
his assigned forces for Presidential directed missions. Individually 
and collectively, the Joint Chiefs are a source of experience and 
judgment that every combatant commander can call upon. If confirmed as 
Commander, SOCOM, I intend to continue a full and frank dialogue with 
the Chiefs of all the Services.
    Question. The other combatant commanders.
    Answer. The combatant commanders define requirements for their 
respective areas of operational responsibility, an effort that assists 
SOCOM in defining its support requirements. If confirmed, I intend to 
foster an atmosphere of teamwork and trust in my relationship with the 
combatant commanders. I will work closely with the other combatant 
commanders in order to best synchronize Department of Defense (DOD) 
activities in the global war on terrorism.
    Question. The Director of the National Counterterrorism Center.
    Answer. Our primary responsibility is to write the DOD's global war 
on terrorism plan in support of the National Implementation Plan, which 
was developed by National Counterterrorism Center (NCTC). In this role, 
SOCOM is actively engaged to support them. We have continuously 
assisted NCTC planning efforts and workgroups since its inception. 
SOCOM has actively supported their development through exercise funding 
and participation and the provision of embedded planners to coordinate 
SOCOM support, facilitate synchronization, and assist NCTC's 
Directorate of Strategic Operational Planning with planning, 
implementation, and assessment efforts as required.
    Question. The Director of the Central Intelligence Agency.
    Answer. We are a consumer of CIA analysis. The Director of the CIA 
has been to SOCOM on numerous occasions over the last year. The CIA has 
liaison personnel at SOCOM and in the field, as well as SOCOM having a 
liaison at the CIA.

                             QUALIFICATIONS

    Question. If confirmed, you will be entering this important 
position at a critical time for the SOCOM.
    What background and experience do you have that you believe 
qualifies you for this position?
    Answer. My 33 years in special operations have afforded me 
opportunities to serve and lead at every level. As a fully qualified 
SEAL operator with an advanced degree in National Security Affairs, I 
have both the training and education to lead this extraordinary force. 
I am a Middle Eastern specialist, a basic Arabic linguist, and an 
experienced joint planner. I have been decorated for personal valor as 
a SOF operator in two conflicts. My service in top leadership positions 
at both Service and joint headquarters has prepared me to operate at 
the senior levels of government. I have been involved in nearly every 
major decision regarding special operations for the last 4 years, and 
have represented SOCOM to the Joint Staff and Office of the Secretary 
of Defense in several committees and working groups, including the 
Quadrennial Defense Review (QDR).

                    MAJOR CHALLENGES/LESSONS LEARNED

    Question. In your view, what are the major challenges confronting 
the next Commander, SOCOM?
    Answer. The major challenges are:

        <bullet> Prioritizing the employment of SOF in order to gain 
        maximum value from this limited asset.
        <bullet> Sustaining the materiel readiness of our high-end 
        mobility platforms in a resource constrained environment.
        <bullet> Transforming our fixed-wing aviation fleet.
        <bullet> Shifting to a more expeditionary deployment posture.
        <bullet> Establishing the mechanisms and agreements with other 
        agencies of government that will facilitate the best 
        utilization of SOF globally.
        <bullet> Maintaining appropriately streamlined acquisition 
        processes and systems.
        <bullet> Growing the force at the programmed rate while 
        ensuring the quality and maturity that the Nation expects of 
        SOF.

    Question. What are the most important lessons you have learned 
during your tenure in senior leadership positions in the Special 
Operations community?
    Answer. Our people remain our most valuable asset.
    SOF must be applied appropriately in order to conserve capability 
and capacity.
    SOF must remain flexible and responsive, with a strong set of 
unique skills and abilities that can be rapidly applied.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I intend to take a long-term approach to 
special operations. We have been extremely successful in responding to 
immediate requirements for several years at the expense of a fully 
executable long-term plan. I intend to form teams to develop or improve 
long range vision for global posture, interagency relationships, joint 
training, SOF roles and missions, recruiting and retention, and 
technology development.

                         MOST SERIOUS PROBLEMS

    Question. What do you consider to be the most serious problems in 
the performance of the functions of Commander, SOCOM?
    Answer. The Commander, SOCOM, lacks authority to manage the 
assignments, promotions, and pay of SOF. This inhibits his ability to 
meet his responsibility to ensure the combat readiness of the force.
    The Commander, SOCOM, is designated the lead combatant commander 
for planning and synchronizing DOD activities against terrorists and 
terrorist networks. That said, SOCOM's ability to drive behavior within 
DOD is limited due to unclear definition of authorities. That makes 
enforcement of those authorities difficult.
    Question. What management actions and time lines would you 
establish to address these problems?
    Answer. If confirmed, I would work with the senior DOD leadership 
to clarify SOCOM's authorities with respect to influencing or 
conducting operations inside and across other global combatant 
commanders' areas of responsibility. This can be accomplished within 
DOD policy and planning documents during their next review cycles.
    Personnel management authorities must be carefully considered with 
a goal of initiating solutions in fiscal year 2010.

                        OPERATION IRAQI FREEDOM

    Question. From your perspective as Deputy Commander, SOCOM, what 
are the main ``lessons learned'' from Operation Iraqi Freedom, 
including the ongoing stability operations?
    Answer. There remains a need to enhance the Joint Force Commander's 
ability to integrate capabilities and capacities of both SOF and the 
general purpose forces (GPF) during execution of the global war on 
terrorism in order to create a joint force that is equally competent in 
irregular warfare as well as conventional warfare.
    Three focus areas to achieving this goal are as follows:

        <bullet> There is an overlap of SOF and GPF capabilities. SOF 
        forces are routinely performing tasks that could be performed 
        by existing GPF capabilities or GPF with additional training. 
        Rebalancing GPF structure to mitigate shortfalls in low 
        density/high demand SOF assets is essential to the global war 
        on terrorism/Irregular Warfare (IW) effort.
        <bullet> Our forces will continue to face an irregular enemy. 
        There exists a necessity to move the IW concept to a full scale 
        capability.
        <bullet> Both SOF and GPF forces require enhanced language and 
        cultural training

    Addressing these focus areas would lead to a joint force with 
enhanced capabilities for IW and a balanced approach to warfighting 
that allows it to be as compelling in IW as it is in conventional 
warfare.
    Question. What are the operational, research and development, and 
procurement implications of those lessons?
    Answer. SOF must be organized, trained, equipped, and employed in a 
manner that enables full spectrum operations.
    Question. How would you assess the adequacy of SOFs provided to 
Central Command, both in terms of quantity and mix, to conduct 
Operation Iraqi Freedom?
    Answer. SOF in the Central Command (CENTCOM) area of operations 
have proven to be extraordinarily capable and responsive to the needs 
of operational commanders. They provide operational flexibility to 
adequately meet mission requirements.
    Question. What is the short- and long-term impact of continued 
operations in Iraq for SOFs, including in terms of readiness, 
retention, and modernization?
    Answer. Short-term gains in combat experience at the cost of 
reduced capability in specific skill areas not utilized in OIF/OEF. 
Long-term impact is uncertain. I anticipate manpower and equipment 
recapitalization challenges.

                              AFGHANISTAN

    Question. About 5 years after securing a military victory against 
the Taliban and al Qaeda in Afghanistan, U.S. and international forces 
are still fighting Taliban forces and other opponents of the Afghan 
government.
    What is your assessment of the current situation in Afghanistan?
    Answer. CENTOM has the lead for DOD's efforts in Afghanistan, and 
we support CENTCOM in their strategy. I share the same view as 
Secretary Gates on Afghanistan. We are optimistic that efforts to rid 
Afghanistan of terrorists and build its new government are working. 
Things are headed in the right direction and we continue our work to 
eliminate enemy safe havens.
    Question. In your view, what is the appropriate role of SOFs in 
Afghanistan, and the proper relationship between direct action and 
counterterrorism and counterinsurgency operations?
    Answer. SOF are appropriately employed in both the direct action 
and irregular warfare role in order to suppress Taliban and al Qaeda 
activity while contributing to the long-term stability and security of 
Afghanistan.
    That dual role of direct and indirect operations should continue to 
help resolve the conflict within Afghanistan. Where necessary, SOF must 
conduct direct action operations to help eliminate the armed threat. 
However, the indirect approach is vital to ensure success so the people 
of Afghanistan have the ability to maintain their own security and 
prosper.

                      POLICY OFFICE REORGANIZATION

    Question. In your view, what is the impact on SOCOM of the ongoing 
reorganization of the office of the Under Secretary of Defense for 
Policy?
    Answer. SOCOM has not felt any significant impact to date from the 
reorganization.
    Question. At what level do you believe most oversight of the 
command will occur--at the level of the Assistant Secretary or Deputy 
Assistant Secretary?
    Answer. Most oversight will occur at the level of the Assistant 
Secretary.

              TRANSFORMATION OF SPECIAL OPERATIONS FORCES

    Question. Much attention has been focused on the transformation of 
our conventional Armed Forces to make them more capable of conducting 
counterinsurgency and combating terrorism missions.
    Do our SOFs need to be transformed?
    Answer. SOF can never remain stagnant and are in continuous 
transformation.
    Question. If so, what is your vision for such a transformation, and 
how would the transformation of conventional forces complement a SOF 
transformation, and vice versa?
    Answer. The foundation pillars of SOF transformation revolve around 
three Strategic Objectives: global war on terrorism Lead, Global 
Presence, and Global Expeditionary Force. SOCOM, while retaining an 
unequaled ability to conduct rapid and precise direct action 
operations, will also conduct operations in protracted regional and 
global campaigns designed to subvert, attrit, and exhaust an adversary 
rather than defeat him through direct conventional military 
confrontation.
    Question. Are the SOCOM and DOD--particularly the military 
Services--investing in the technologies to transform SOF according to 
the vision you describe?
    Answer. Yes, we are investing in those types of technologies. There 
are two integral parts to SOCOM's technology program--leveraging the 
Services, Defense Agencies, and government laboratory efforts, while 
harvesting those technology efforts that can be rapidly transitioned 
into capabilities for the operator. We will continue to pursue 
technological advances that address SOF-unique requirements but which 
can also be integrated with the conventional forces.

                        RESEARCH AND TECHNOLOGY

    Question. If confirmed, what metrics will you use to determine the 
effectiveness of SOCOM technology development investments and whether 
SOCOM is investing enough resources in these efforts?
    Answer. We have created a series of technology road maps that 
assist us in identifying promising solutions to our problems. These 
road maps are schedule oriented; containing both the technology 
development time lines and the formal acquisition program schedules. As 
such, they have quantifiable metrics (cost, schedule, performance, and 
technology readiness) embedded in them.

                         ACQUISITION WORKFORCE

    Question. If confirmed, how you will ensure that SOCOM has the 
highest quality acquisition workforce to develop and manage acquisition 
and research and development programs?
    Answer. The quality of our acquisition workforce is directly 
related to the combination of the Defense Acquisition Workforce 
Improvement Act (DAWIA) standards, the Services' ability to continue to 
provide properly trained military acquisition personnel to fill our 
military billets, and our ability to hire qualified civilian personnel. 
The quality in our acquisition workforce comes from ensuring that SOCOM 
acquisition personnel (whether military or civilian) are trained and 
certified to DAWIA standards. This ensures they have the acquisition 
education, experience and training needed to effectively manage SOCOM 
acquisition, research and development programs. By virtue of a series 
of Memoranda of Agreement with the three Military Departments, SOCOM 
also has access to and can obtain experienced advice, program 
management support, and technical assistance from the Military 
Departments for our SOCOM acquisition programs.

                  BASING FOR SPECIAL OPERATIONS FORCES

    Question. The Integrated Global Presence and Basing Strategy 
released by the President in August 2004 called for SOFs from various 
overseas locations in Europe and the Pacific theater to be relocated to 
military installations in the United States in order to better manage 
the demand for forces and high operations tempo.
    Do you support this realignment of SOFs back to the United States?
    Answer. Yes. The overall objective of the SOCOM Global SOF Posture 
(GSP) is to establish a worldwide persistent joint SOF presence to 
shape operational environments in support of the global war on 
terrorism and theater security cooperation initiatives. The realignment 
will permit a more tailorable force to accomplish this.
    Question. In your opinion, does the realignment in any way diminish 
the ability of SOFs to support the requirements of combatant 
commanders? If so, how would you propose to address this problem?
    Answer. No. Implementation of the GSP, when combined with SOF 
growth, provides SOCOM the ability to manage SOF from a global 
perspective and provides better flexibility to meet the increasing 
demands of the combatant commanders.
    Question. In your opinion, are SOFs based at locations in the 
United States appropriately positioned to facilitate joint training, 
operations, and rapid deployment?
    Answer. Yes. Currently we have SOF spread throughout the United 
States with the majority on or near both coasts. Although there are no 
true joint bases, our units are generally based in close enough 
proximity to enable joint training. If confirmed, I would seek 
additional opportunities to enhance joint training.
    Question. In your view, with the growth of SOFs end strength should 
any military installations in the United States be designated solely as 
Special Operations bases?
    Answer. No. SOCOM is not structured or resourced to manage military 
bases. The support provided by the Army, Air Force, Navy, and Marine 
Corps in their roles as executive agents enables our forces to maintain 
their Service culture, enhances SOF recruiting, and provides SOF with 
access to Service-common facilities and transportation hubs resident on 
or near major military installations. This close proximity to our 
Services helps facilitate mobility and jointness without degrading our 
SOF-unique requirements and capabilities.
    Question. In your opinion, does SOCOM have access to sufficient 
ranges in the United States to be able to adequately train for the full 
range of joint, combined arms special operations missions?
    Answer. Yes. We have access to a spectrum of ranges but face 
ongoing coordination, utilization, and access challenges. Some of the 
ranges we have historically used require intensive coordination and 
often changes to training schedules to ensure sufficient range time.
    SOCOM and its components, together with the Services, are 
diligently working the issues. The U.S. Marine Corps (USMC) is 
assisting us in certifying USMC ranges for nonstandard weapons. The 
U.S. Army SOCOM has been very successful working with Army to ensure 
Army SOF requirements are planned and built into Army ranges. The Air 
Force SOCOM worked with the Joint National Training Center to establish 
a Military Operations in Urban Terrain (MOUT) range for AC-130 gunship 
use.
    We are assessing the feasibility of investing in SOF ranges or in 
establishing right-of-first-use agreements at installations with ranges 
that support our requirements to improve access and reduce schedule 
changes. Further, we are looking at options for moving some training 
closer to our home bases.

                          COMBATING TERRORISM

    Question. If confirmed, you would play an integral role in the 
Department's combating terrorism mission.
    Which DOD official provides the primary civilian oversight with 
regard to SOCOM's combating terrorism mission?
    Answer. Title 10, U.S.C., section 138, establishes the duties of 
the Assistant Secretary of Defense for Special Operations and Low-
Intensity Conflict. He is the principal civilian advisor to the 
Secretary of Defense on special operations and low intensity conflict, 
as well as the senior management official within the Department for 
special operations and low intensity conflict. These responsibilities 
include the overall supervision of special operations directed toward 
combating terrorism.
    Question. What other DOD officials would be involved in oversight 
of SOCOM's combating terrorism mission?
    Answer. The Under Secretaries of Defense for Intelligence and 
Policy both provide oversight, direction, and guidance to SOCOM's 
efforts to execute its mission. I would anticipate continued, frequent 
interaction with these two principal Under Secretaries.

                         INFORMATION OPERATIONS

    Question. Information operations and information warfare will 
likely play an increasing role in 21st century warfare.
    What is your definition of information operations, and what role do 
you envision for SOCOM in overall U.S. information operations?
    Answer. Information operations are the integrated employment of 
electronic warfare, computer network operations, psychological 
operations, military deception, and operations security to influence, 
disrupt, corrupt, or usurp adversarial human and automated decision 
making while protecting our own information systems.
    SOF play a significant role utilizing Information Operations to 
achieve DOD objectives in the global war on terrorism. Through the 
Geographic Combatant Commanders, SOCOM plans and integrates the full 
range of information operations capabilities to deter, deny and degrade 
extremist operations and networks, while building partner nation 
capabilities and eliminating the conditions that foment terrorism.
    SOCOM is the DOD proponent for psychological operations (PSYOP) 
forces, training, and capabilities.
    Question. Under what circumstances would the Commander, SOCOM, 
conduct information operations as a supported combatant commander?
    Answer. As the DOD lead for planning and synchronizing the war on 
terrorism, SOCOM guides collaborative planning, coordination, and when 
directed, execution of information operations. As the supported 
command, SOCOM envisions execution of information operations to support 
surgical, limited duration, counterterrorism missions, as well as 
support to long range planning to develop coordinated, trans-regional 
strategies against terrorists and their supporters.
    Along with the DOD, SOCOM is also working with the Department of 
State and other government agencies to develop integrated national 
Strategic Communication processes and responsibilities, in which 
information operations plays a significant role.

                      SUPPORTED COMBATANT COMMAND

    Question. As Deputy Commander, SOCOM, you have been involved in the 
exercise of SOCOM's responsibilities as a supported combatant command, 
and as a supporting combatant command.
    In your view, under what circumstances should SOCOM conduct 
operations as a supported combatant command?
    Answer. When near simultaneous operations must be conducted within 
two or more Global Combatant Commands, SOCOM would provide the 
oversight to ensure synchronization and de-confliction of these 
operations.
    Also, a scenario that requires a very small and precise operation 
that is SOF-peculiar in nature could lead to designation of SOCOM as 
the supported commander.
    Question. In your view, what resource, organization, and force 
structure changes, if any, are required in order for SOCOM to more 
effectively conduct both supporting and supported combatant command 
responsibilities?
    Answer. To meet our responsibilities as a supported combatant 
command we must to continue to: properly man our components and 
headquarters; ensure they have the latest equipment and technology; and 
develop a better cross global combatant command, Service, coalition and 
interagency compatible collaborative planning and execution 
environment. We must also expand upon our liaison officer and Special 
Operations Support Team programs with our coalition partners and 
agencies.
    Aircraft modernization, ISR platforms, and global sensor network 
are three key areas that require additional resources.

                        RECRUITING AND RETENTION

    Question. How successful has SOCOM been in recruiting and retaining 
the personnel it needs?
    Answer. The personnel readiness of SOF is excellent. Our primary 
focus in fiscal year 2007 has been to maintain readiness while 
executing current operational requirements and personnel growth. 
Execution of retention incentives, coupled with the expansion of our 
training base and ongoing efforts to improve recruiting, are the way 
forward as we maintain and grow the force.
    Recently implemented retention and bonus programs are having a 
positive impact across all SOF personnel from all Services. Retention 
numbers to date meet or exceed each Service's retention goals.
    We are cautiously optimistic that recently implemented recruiting 
and retention incentive programs will continue to positively shape the 
force.
    Question. What are the biggest challenges to retention you see in 
the SOCOM community?
    Answer. The greatest challenge will be the continued funding of 
retention incentives in a climate of constrained resources.
    Question. Specifically, what is the status of the efforts to 
increase retention within SOCOM's components, and especially among the 
Navy SEAL officers, all senior NCOs, and pilots?
    Answer. SEAL officers will be eligible for the Critical Skills 
Retention Bonus (CSRB) in 2007, which targets officers in pay grades O-
4 through O-6, with the goal of retaining selected officers up to the 
25-year career milestone. It complements the existing Officer Career 
Pay that was implemented in 1999 for officers with 6-14 years of 
service. Since inception of the Officer Career Pay, retention increased 
from a low of 34 percent to an average of 64 percent. Although the 
results are still undetermined, the CSRB is expected to influence 
retention behavior among Navy SEAL officers.
    To retain the experience of senior noncommissioned officers, the 
combination of CSRB and Assignment Incentive Pay (AIP) is producing 
positive results. For Army SOF in particular, the inception of the CSRB 
and AIP in fiscal year 2005 is retaining a more mature force. The 
average retirement time in service stood at 21.7 years for Special 
Forces (SF) personnel. We were losing experienced leaders at a critical 
career juncture. Fiscal year 2007 data shows that SF personnel now 
retire at an average of 25 plus years time in service. This is a 
significant jump in the right direction since inception of the CSRB and 
targeted AIPs. This combination is also working well for the other SOF 
components.
    The Air Force Fixed Wing pilot population is being monitored 
closely due to an increased number of young aviators being assigned. 
This lack of experience concerns us because of the special skills 
required to fly SOF mission profiles. This is why we are looking at 
ways to increase the experience levels of fixed wing pilots. We have 
identified the critical attributes believed to be keys to success of 
SOF aviators and they will be stressed in our recruitment efforts. From 
an assessment perspective, we currently measure progress at every level 
of training and will continually look for ways to strengthen our 
evaluation rigor throughout the process. The Air Force SOCOM, partnered 
with the Air Force, Air National Guard, and Air Force Reserves, will 
continue to explore various venues in order to increase aircrew 
experience levels.
    Question. What steps need to be taken, in your view, to meet the 
recruiting and retention goals of each of the Services' SOFs?
    Answer. Recruiting will continue to be challenging. To mitigate 
these challenges, we need your help in increasing the recruiting 
budgets of the Services. The Services need greater flexibility to 
reward those qualified candidates who accept the challenges of Special 
Operations training. Recruiting commands need the flexibility of 
additional resources to apply to areas that are most underresourced. By 
continuing to work with the Services, I believe we will continue to 
improve the SOF accession numbers.
    Question. What monetary or nonmonetary incentives do you believe 
would be most effective in this regard?
    Answer. Monetary incentives including the Selective Re-enlistment 
Bonus (SRB), Officer Continuation Pay (OCP), Critical Skills Retention 
Bonus (CSRB), Special Duty Assignment Pay (SDAP), and Assignment 
Incentive Pay (AIP) are proving to be critical force shaping tools. To 
date, these have been the most effective retention tools we have. 
Additionally, providing targeted enlistment bonuses for new SOF 
accession candidates will help shape the future force.
    We are currently exploring other quality of life benefits that are 
difficult to quantify or measure in order to optimize their impact on 
retention and readiness. I believe that intangible incentives, such as 
camaraderie, job satisfaction, and family support are just as 
important, if not more, so than monetary ones. However, the monetary 
incentives are the only metrics we can quantifiably measure at this 
time.
    We will study the potential impact of adjustment to retirement 
packages.

                     MARINE CORPS SPECIAL OPERATORS

    Question. What do you believe should be the appropriate 
relationship between the Marine Corps and SOCOM?
    Answer. SOCOM should work with the Marine Corps as it does with the 
other Services. A close relationship is especially important now as the 
Marine Forces Special Operations Command (MARSOC) continues to gain 
initial capabilities.
    Question. Do you believe that Marines should be ``SOF for life,'' 
just as Army SOFs are?
    Answer. Yes, the career path of Marine SOF should be modeled after 
the other SOF components.
    Question. What can be done to improve the training of marines in 
the Marine Corps Special Operations units to ensure that they possess 
the language capabilities and cultural awareness that are needed for 
counterterrorism and training missions?
    Answer. The MARSOC is still not fully manned but is maturing at a 
faster than expected rate, benefiting from our other Service 
components' lessons learned. It has implemented a qualification 
pipeline that includes language and cultural training. Additionally, 
their principal training unit has regionally oriented its teams to 
facilitate regionally focused training. Their program requires 
continued emphasis and we must provide for sufficient training 
capability afloat to account for sustainment and mission changes. They 
are on the right track.

                      SPECIAL OPERATIONS MISSIONS

    Question. What current missions, if any, do you believe can and 
should be divested by SOCOM, and why?
    Answer. SOF should not divest any mission areas. There are some 
tasks that should be handed off to GPFs at the right time.
    Question. Are there any additional missions that you believe SOCOM 
should assume, and, if so, what are they and why do you advocate adding 
them?
    Answer. No, our current mission set is appropriate to meet 
requirements to conduct both direct and in-direct operations.
    Question. What can be done to ensure that SOF missions with medium- 
and long-term impact, such as unconventional warfare and foreign 
internal defense, receive as much emphasis as direct action, and that 
they receive appropriate funding?
    Answer. Continue to fully implement the QDR decisions related to 
SOF growth in both capability and capacity. This will enable enhanced 
training and more robust presence outside of CENTCOM's AOR.
    Continue to support section 1208/1202 authorities as we work with 
the Theater SOCOMs to support their regional efforts.

                   SIZE OF SPECIAL OPERATIONS FORCES

    Question. The QDR called for increases in the size of SOFs.
    Do you believe that we should increase the number of special 
operations personnel? If so, why, and by how much? If confirmed, would 
you consider greater increases than those envisioned in the QDR?
    Answer. The QDR directed growth in both the size and capabilities 
of SOF, allowing SOCOM to accomplish its increased missions and 
responsibilities of synchronizing the global war on terrorism as both a 
supported and supporting command. Overall, the QDR increases SOF by 
13,119 personnel, which will: grow U.S. Army Special Forces, Rangers, 
SOF aviation, Active-Duty U.S. Army Civil Affairs and Psychological 
Operations; increase SEAL Team force levels; establish MARSOC as the 
Marine Corps component of SOCOM; and create a SOF unmanned aerial 
vehicle (UAV) squadron. This QDR directed growth will address most of 
the current manpower shortages faced by SOCOM. However, we are 
constantly evaluating and analyzing current and emerging missions, and 
any additional force structure or manpower required to support these 
requirements. At this time, our most pressing capability gap is in the 
area of Intelligence, Surveillance, and Reconnaissance. SOCOM is 
working to address this shortfall, but in the future may require 
additional funding and equipment to close the gap.
    Question. In your view, how can the size of SOFs be increased, 
while also maintaining the rigorous recruiting and training standards 
for special operators?
    Answer. This must be a two-pronged strategy. The first must be 
retention efforts aimed at mid- and senior-level SOF warriors. This 
will mitigate gaps until the growing force matures. Second, it is 
imperative that the training standards for SOF not be diluted. While we 
look at ways to increase the proficiency within the training pipelines, 
we will maintain the standards necessary for our forces.

                          CIVIL AFFAIRS UNITS

    Question. The increased role of the United States military in 
numerous missions throughout the world has stressed SOCOM, in 
particular the civil affairs units, most of which are in the Army 
Reserve.
    If the current high operational tempo continues, would it be 
advisable to increase the number of civil affairs units?
    Answer. This is something I would like to analyze over time.
    Question. If so, should the increase be in the Active Army or the 
Army Reserve and why?
    Answer. Given the recent transition of Reserve Component 
Psychological Operations and Civil Affairs units to the Army, that is 
where most increases should be concentrated should they be needed. SOF 
retained the Active-Duty Psychological Operations and Civil Affairs 
units, which were increased as part of the QDR.
    Question. What impact has the high operational tempo had on 
recruiting and retention in Reserve Civil Affairs units?
    Answer. To date, Army Reserve Civil Affairs and Psychological 
Operations branches are relatively strong. Recruiting remains a focus 
for junior officers while senior officers and enlisted inventories are 
manned at greater than 100 percent strength.
    Question. Reserve Civil Affairs personnel are now under the 
administrative command of the Army.
    What impact do believe this is having, and will have on the 
training, equipping and promotion and individual assignments of Civil 
Affairs reservists?
    Answer. The transfer of U.S. Army Reserve (USAR) Civil Affairs 
personnel to the command of the Army occurred in October 2006 in an 
effort to ensure better integration of USAR Civil Affairs units with 
conventional forces. This action has been worked extensively by special 
working groups from SOCOM, U.S. Joint Forces Command, and the U.S Army 
to ensure that the full Civil Affairs capability is maintained and that 
the warfighting requirements of the combatant commanders are met. 
SOCOM, through the U.S. Army SOCOM, continues to retain joint 
proponency for both Active and Reserve Civil Affairs and Psychological 
Operations forces, as well as the Training Center of Excellence. I have 
full confidence in the U.S. Army's ability to fully execute its title 
10 responsibilities in order to ensure the proper training, equipping, 
and promotion of Civil Affairs soldiers within the U.S. Army Reserve.
    The overall impact of this transfer to date is minimal.

                         READINESS AND OPTEMPO

    Question. To what extent has the pace of operations in recent years 
had an impact on U.S. SOCOM's readiness, retention, and resources?
    Answer. Since September 11, 2001, the increased role of SOF in 
fighting the global war on terrorism has been accompanied by increased 
requests for base year and supplemental funding. In fiscal year 2001, 
SOCOM received a total of $2.3 billion; the current fiscal year 2008, 
the President's budget request seeks $6.2 billion; in addition, the 
fiscal year 2008 global war on terrorism request seeks another $2 
billion in supplemental funding to support global war on terrorism 
requirements.
    With regard to retention, overall OPTEMPO has not had an adverse 
effect on morale, recruitment, and retention. Morale and retention are 
closely linked. Retention rates remain high for our enlisted SOF 
operators.
    Question. What actions can be taken to reduce any negative impacts?
    Answer. Full and timely funding of the fiscal year 2008 President's 
budget request and the fiscal year 2008 global war on terrorism will 
provide SOCOM with the resources needed to meet the challenges of its 
increased missions and responsibilities of synchronizing the global war 
on terrorism.
    Question. Do you expect the QDR-related personnel increases to 
alleviate the strain?
    Answer. The QDR directed growth in both the size and capabilities 
of SOF, allowing SOCOM to accomplish its increased missions and 
responsibilities of synchronizing the global war on terrorism as both a 
supported and supporting command. Overall, the QDR increases SOF by 
13,119 personnel, and will: grow U.S. Army Special Forces, Rangers, and 
SOF aviation; grow Active Army Civil Affairs and Psychological 
Operations; increase SEAL Team force levels; establish MARSOC as the 
Marine Corps component of SOCOM; and create a SOF unmanned aerial 
vehicle (UAV) squadron. This growth will enable some OPTEMPO relief. 
More importantly, it will permit SOF presence in selected areas where 
we have been underrepresented for several years.
    Question. What is the current state of special operations 
readiness, for all missions, for all Service components?
    Answer. Operational readiness is at an all time high. Never in the 
history of our organization has the SOF community received the level of 
resource support, attention, and cooperation that we have realized and 
programmed from the President, Congress, and the Service Chiefs. At the 
same time, it is important to mention that deployed operational tempo 
for the average servicemember assigned to a SOF unit, and equipment 
utilization rates are also at their highest point in the history of our 
organization. Managing the second and third order effects of compressed 
rotational timelines, increased wear and tear on equipment, and impacts 
within the families of our dedicated servicemembers is a challenge that 
requires constant intrusive management and planning.
    It is important to note that some manning shortfalls exist in a 
number of select skill sets across all Service components. We are 
managing this issue through increased accessions into the various 
pipelines, targeted pay incentives, and increased recruiting efforts.
    Question. Is it your understanding that these readiness assessments 
include an assessment of current language skills for your 
geographically-specialized operators? Should they?
    Answer. SOCOM has paid inadequate attention to the true language 
readiness of our force as a measure of total operational readiness. If 
confirmed, I will work to ensure that readiness assessment includes 
language metrics.
    Question. What actions need to be taken, in your view, to address 
reduced language and cultural awareness proficiency that results from 
the fact that SOCOM has not been able to deploy many personnel to their 
regional areas of expertise?
    Answer. In the current environment, training time is short and 
precious. We are still deploying SOF around the world but in smaller 
numbers outside of CENTCOM and the rotations of units not regionally 
oriented for CENTCOM has had an impact on language and regional 
capability.
    Most SOF language requirements and abilities are in the Army 
component (Special Forces) and most of the initial language and culture 
training is conducted in our basic training pipelines.
    We need to make it easier for personnel to train by providing 
greater access to proven, high quality training that can be delivered 
more flexibly than the traditional classroom but that has proven, 
measurable, results that are at least comparable to traditional 
training. Options that have worked well for us include tailored, low 
student to teacher ratio classes and delivering live training over the 
web.
    Immersion and iso-immersion are training formats that produce 
significant results in short periods for students who have already 
attained basic proficiency (level 1). Since CENTCOM rotations make 
training time even more scarce, immersion and is-immersion training are 
effective, if costly, means of maximizing the capability gained in the 
short periods available.
    Our current language proficiency (i.e. testing) measurement process 
has a direct, negative impact on our training programs and, ultimately, 
capability. Conversing is the key foreign language skill for special 
operators; however, current test policy, infrastructure, and capacity 
focus on the read/listen portion of Defense Language Proficiency Tests 
that are increasingly constructed to serve users whose military tasks 
center on listening at proficiency Level 2 and higher.
    The result is that our instructors focus on read/listen skills to 
demonstrate their effectiveness and our students focus on read/listen 
skills to obtain foreign language incentive pay while our key 
requirement is for speaking. SOFs language tasks are most often 
performed in face-to-face conversations. The listening component of 
these newer read/listen tests is less relevant to our requirements.
    Those willing to dedicate the time should be provided a funded 
incentive. Funding foreign language incentive pay for personnel whose 
language proficiency is Level 1 or 1+ is important to increasing our 
capability. Special Operations personnel generally attend courses that 
target Level 1 proficiency and will train with a regional focus so that 
subsequent training and assignments will enhance the individual's 
capability over a career in SOF. Incentive pay at 1 and 1+ helps bridge 
the gap from initial SOF capability to higher levels.
    Increased provision of role players, in language, across a wider 
range of exercises will also help to identify deficiencies while 
cementing the importance of the cultural and language expertise. In the 
long-term we need to increase the level of our capability and, as 
previously alluded to, eventually reaching a ``closed-loop'' for all 
SOF operators. Regional orientation for specific units will capitalize 
on training and experience investments while yielding more expert 
capability.
    Question. If confirmed, what language programs, if any, would you 
put in place to maintain and improve language skills?
    Answer. There are some common elements in most of our programs. We 
normally target language proficiency level 1 for initial courses. All 
of our courses include relevant cultural content. SOCOM has a mature 
language training program in place within Army SOF and we need to 
continue this program and ensure it is fully funded.
    The Marine SOF are rapidly establishing language and culture 
training as integral parts of their qualifying training. They have well 
thought-out plans in implementation now for sustainment and 
enhancement. Currently, this is focused primarily on their trainers but 
it is envisioned to eventually include the whole force. In the interim, 
tailored training is provided to the counterterrorism units. Exportable 
training support packages are also being provided to enable training 
enroute for units afloat as missions may change. The long-term 
effectiveness of the Marine SOF program hinges on retaining Marine SOF 
within SOCOM and targeted regional orientation.
    Regionalization is of less importance to SOF Air Force units, with 
the exception of one squadron that specializes in training foreign 
forces. This squadron recently implemented a training pipeline and 
their initial and subsequent training are tied to regional orientation 
but, without repetitive assignments in SOF will have limited success.
    We are conducting several joint SOF language training programs now 
and are assessing the results. We expect ready access to training time 
and gyms to remain fit but we are often unable to meet that same 
standard for language training.
    These programs must be supported and facilitated with appropriate 
funding, incentives, personnel assignment and management policies, and 
relevant testing.

       TRAINING AND EQUIPPING INDIGENOUS FORCES FIGHTING WITH SOF

    Question. In section 1208 of the National Defense Authorization Act 
for Fiscal Year 2005, Congress gave SOCOM a 2-year authority to train 
and equip indigenous forces fighting alongside U.S. special operators. 
This year the Department is seeking a reauthorization.
    How has SOCOM used this authority, and to what effect?
    Answer. During the last 3 years (fiscal years 2005-2007), SOCOM has 
coordinated with the Geographic Combatant Commanders to use section 
1208 funding authority in every theater. In some cases, it has been 
used to better enable partner nation forces to support us in fixing and 
finishing terrorists (e.g., the Philippines). In others, it has been 
used to employ indigenous elements to gain access to hostile areas 
where U.S. forces cannot openly operate and obtain information about 
potential terrorist targets which could not be obtained through 
conventional intelligence collection methods (e.g., Iraq, Afghanistan, 
Syria, and Horn of Africa). In all cases, section 1208 authority has 
provided invaluable access and information that has saved American 
lives and contributed to the successful apprehension of high-value 
terrorist targets.
    Question. If confirmed, how and where would you use this authority?
    Answer. First, let me make the point that section 1208 funding 
authority is used by the Geographic Combatant Commanders who are 
conducting military operations using SOF. SOCOM does not conduct its 
own section 1208 operations. Nevertheless, I would continue to support 
the Global Combatant Commanders in using section 1208 in support of 
counterterrorist operations to gain access to terrorist safe havens and 
seek information that only indigenous tribes and native inhabitants can 
provide. Our supported commanders have confirmed repeatedly that 
section 1208 funding authority is an absolutely essential tool in the 
war on terrorism.

                  ADVANCED SEAL DELIVERY SYSTEM (ASDS)

    Question. To date, about $885 million has been spent on developing 
the Advanced SEAL Delivery System (ASDS). The fiscal year 2008 request 
for ASDS is $10.6 million for procurement and $20.3 million for 
research and development.
    In your view, can SOCOM afford to have more than one ASDS?
    Answer. The original requirement for a small fleet of manned dry 
submersibles is unchanged, but it is clear that more than one of the 
current ASDS platform is unaffordable unless costs can be reduced. The 
Department cancelled the original ASDS program. As a result only one 
ASDS hull exists, and only the correction of reliability problems on 
that hull (designated ASDS-1) remain to be completed. The fiscal year 
2008 funding is being used to correct these deficiencies through the 
installation of a series of design and reliability improvements. The 
Navy will be conducting an Alternate Material Solutions Analysis to 
determine how to best meet current and future SOF undersea warfare 
requirements. The analysis will examine a broad range of potential 
material solutions and will recommend a solution or combination of 
solutions to satisfy the capability gaps identified in a recent 
capability gap analysis performed by the Commander, Naval Special 
Warfare Command. The Alternate Material Solutions Analysis will also 
include the respective cost estimates for the various solutions. This 
will be completed by February 2008 and will inform any future program 
decisions.
    Question. How long will it take for you to ensure that we have an 
operational ASDS?
    Answer. We expect ASDS-1 to become fully operational and ready for 
deployment to meet assigned missions in fiscal year 2008. The ASDS 
Reliability Improvement Program was initiated in fiscal year 2006 to 
improve the operational reliability of the existing ASDS vehicle (ASDS-
1), in order to make it fully operational and ready for deployment to 
meet assigned missions. The ASDS Reliability Improvement Program is on 
schedule. This ongoing reliability effort represents the major portions 
of the funding shown in the fiscal year 2007 and fiscal year 2008 
budget exhibits. As a result of this effort, ASDS-1 has demonstrated 
significantly improved reliability within the past year during both 
independent and mated underway operations.

                         TREATMENT OF DETAINEES

    Question. Do you agree with the policy set forth in the July 7, 
2006, memorandum issued by Deputy Secretary of Defense England stating 
that all relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. Do you believe it is consistent with effective 
counterinsurgency operations for U.S. forces to comply fully with the 
requirements of Common Article 3 of the Geneva Conventions?
    Answer. Yes.
    Question. If confirmed, how would you ensure that U.S. forces in 
Iraq and Afghanistan comply with the standards in the Army Field 
Manual, the DOD Directive, and applicable requirements of U.S. and 
international law regarding detention and interrogation operations?
    Answer. If confirmed, I will ensure that the command strictly 
complies with the DOD Law of War program. The program is enforced 
through prompt investigation of allegations of abuse and where 
appropriate, disciplinary actions, to include prosecution under the 
Uniform Code of Military Justice.
    Question. The DOD Inspector General recently released a report on 
detainee abuse noting reports of detainee abuse by a Special Mission 
Unit (SMU) Task Force in Iraq that took place before the behaviors at 
Abu Ghraib came to light. Additionally, the report noted that personnel 
in this SMU Task Force introduced battlefield interrogation techniques 
that included abusive tactics such as sleep deprivation, stress 
positions, the use of dogs, and the use of Survival Escape Resistance 
and Evasion techniques--techniques designed specifically to imitate 
tactics by a country that does not comply with Geneva.
    Do you believe that such techniques contribute to and are 
appropriate in a struggle against terrorism?
    Answer. No.
    Question. What is your understanding of how battlefield 
interrogation techniques by such units were monitored and authorized?
    Answer. I have no personal knowledge of the battlefield 
interrogation techniques noted above and who may or may not have 
authorized those techniques for use. I do know that some of these 
techniques (such as sleep deprivation) were outlined in the old Army 
Field Manual and were, within certain limits, permissible.
    Question. Have the responsible SMU personnel been held accountable 
for their actions? If not, why not?
    Answer. The personnel (whose conduct is described in the DOD IG 
report of investigation) were assigned to another combatant command 
during the time of the conduct that formed the basis of that 
investigation. I am not thoroughly familiar with the corrective actions 
taken by that command in response to the investigative findings and 
recommendations. I am, however, aware of several instances of 
administrative and punitive actions against SOF personnel who were 
found to be in violation of the combatant commander's policies.
    Question. If confirmed, what steps would you take to ensure that 
our SOFs understand the necessity of complying with the Geneva 
Conventions when detaining and interrogating individuals under U.S. 
control?
    Answer. The DOD Law of War Program and SOCOM require that all DOD 
personnel and contractors must conduct operations in a manner 
consistent with the Law of War and U.S. domestic law and policy. 
Additionally, the DOD Detainee Program and Army Field manuals for 
detainee operations and interrogations have similar requirements. SOCOM 
enforces these regulations through unit and individual training before 
and during all missions and on an annual basis. I would continue this 
practice as one of my top priorities.
    Question. What steps would you take to ensure that those foreign 
forces trained by our SOFs understand the same necessity?
    Answer. As part of such training, our SOFs always indicate that 
further military assistance and training is predicated on such foreign 
forces adherence to the law of war.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, SOCOM?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Daniel K. Akaka

                           ARMING INSURGENTS

    1. Senator Akaka. Vice Admiral Olson, it has been reported in the 
media recently that we are arming Sunni insurgents so that they can 
fight al Qaeda in Iraq (AQI). Do you believe this is a good policy? If 
so, how are we ensuring that these weapons are not turned against us 
either during the battle with AQI or after the battle is over?
    Admiral Olson. I would defer the bulk of this question to the 
Office of the Secretary of Defense and U.S. Central Command (CENTCOM). 
That said, from a Special Operations Forces (SOF) perspective, some 
tribal sheikhs, both Sunni and Shia, have approached our special 
operations A-detachments and asked for support to provide security for 
their tribal areas and to rid them of foreign extremists. This is an 
opportunity to enhance efforts to fight al Qaeda by capitalizing on 
local opposition to al Qaeda in areas where such opposition did not 
previously exist. The plan is relatively modest in scope by providing 
security training to carefully vetted tribal members, who would be 
formed into ``community watch'' elements to report on suspicious 
intruders and protect the tribes from brutalism. This Department of 
Defense (DOD) approved plan does not include arming these watch groups, 
however, many of them do have their own arms.

    2. Senator Akaka. Vice Admiral Olson, how will we make sure that 
the weapons are returned or destroyed when they are not needed anymore?
    Admiral Olson. Exports of Defense-related goods and technology can 
have significant impact on our Nation's security. We need to ensure 
that export of weapons support our security interests by protecting 
important military advantages and by supporting the military 
capabilities of our allies and friends that serve our mutual defense 
interests. The U.S. Special Operations Command (SOCOM) controls and 
accounts for defense articles and services provided to foreign 
nationals (both permanent and temporary transfers) by issuing guidance 
consistent with national security objectives and U.S. foreign policy. 
The goal of this guidance is to ensure all SOCOM's forces understand 
and comply with U.S. statutory requirements and DOD policies that 
govern U.S. international transfers of defense articles and services. 
Furthermore, the guidance issued outlines operational limitations and 
provisos which are designed to make certain all defense articles and 
services transferred to foreign nationals are accounted for and 
monitored throughout all phases of operations. Weapons are issued as 
required for specific duties and those not permanently transferred are 
returned when units are demobilized.

    3. Senator Akaka. Vice Admiral Olson, how is our support to the 
insurgents perceived by the Kurds and the Shia?
    Admiral Olson. Senior Kurdish leaders have expressed limited 
concern over additional armed elements facing the security of Iraq. 
Kurdish leaders acknowledge the often hostile forces operating in the 
region, and understand they must balance Kurdish goals of independence 
with U.S. aims to stabilize Iraq and defeat al Qaeda. Arming insurgents 
operating in central and southern Iraq poses minimal imposition to 
Kurdish interests and authorities in northern Iraq.
    Senior Shia Iraqi government leaders have expressed skepticism 
about coalition forces arming insurgent groups as a way of fighting al 
Qaeda, and they are concerned that arming the insurgents would create 
new militias that would eventually add to Iraqi security challenges and 
promote sectarian violence. Iraqi Prime Minister Maliki expressed his 
protest and insisted those bearing arms without permission would be 
considered militias and would be dealt with as such. We are sensitive 
to the concerns of the Iraqi government, and are working to ensure 
these groups are properly vetted and coordinated with the ISF, to 
create a mutually-beneficial relationship between the central 
government and these local security units.

                      CHANGE IN MILITARY STRATEGY

    4. Senator Akaka. Vice Admiral Olson, what would be the impact, in 
your opinion, if we were to change our military strategy in Iraq so 
that our troops would only be used to conduct offensive operations 
against terrorist organizations (i.e., AQI, etc.), and all other Iraqi 
security was immediately turned over to Iraqi security forces? The 
advantage in doing this is that our troops would still be in the 
theater (although probably at reduced levels) and engaging those 
organizations that were deliberately inflaming sectarian strife, but 
would not be trying to maintain security throughout Iraq. Of course, 
they would be able to defend themselves, if attacked, and they could 
re-engage if the security situation showed signs of catastrophic 
failure. Please provide your opinion on how a strategy change like this 
might impact the conflict in Iraq.
    Admiral Olson. In my opinion, the impact would likely be a 
deteriorating security situation that would make our continuation of 
``offensive operations'' very difficult. Our current counterinsurgency 
operations are amplifying our ability to conduct offensive operations 
against terrorist organizations, including AQI. Without earning the 
trust and support of local populations through our new strategy, 
gathering the intelligence to go after key terrorist leaders and 
networks would become increasingly difficult.
    It is essential that U.S. forces remain engaged in the training and 
development of the Iraqi Army. At the tactical level, many of the Iraqi 
units have proven marginally capable. However, at higher echelons it is 
apparent that the support structure is not yet in place to enable self-
sufficiency. Therefore, without the support of U.S. forces, the Iraqi 
Army would potentially fail in their security mission.
    As an aside, it is important to note that ``terrorist 
organizations'' would be too narrow a definition of organizations 
posing a threat to stability in Iraq. Using the latter definition of 
``organizations that were deliberately inflaming sectarian strife'' 
would be more appropriate as there are a number of groups responsible 
for the cycle of sectarian violence that are not labeled as terrorist 
organizations (e.g.: the Jaysh al Mahdi). Additionally, the definition 
would have to include both Sunni and Shi'a threats, as fringe elements 
of both contribute to the current situation.

                        CONTRACTOR ROLES IN IRAQ

    5. Senator Akaka. Vice Admiral Olson, during your confirmation 
hearing, Senator Webb asked you if our SOF in Iraq were working with 
contractors who were performing an operational role. You stated that 
all of SOCOM's contractors were support only, but that you did not know 
if they worked in conjunction with contractors hired by other commands 
that are performing an operational role. You said that you would study 
the issue, if confirmed. When do you expect to have the results of your 
study? Please inform me of the results of your study when they are 
available.
    Admiral Olson. In my response to Senator Webb, I intended to 
indicate that I would look into DOD policy concerning contractors in 
the battlefield. SOCOM does not have cognizance over contractors that 
are hired by other combatant commanders or the authority to initiate a 
manpower study over them. Concerning DOD policy, in 2005 the Under 
Secretary of Defense for Acquisition, Technology, and Logistics 
promulgated a DOD-wide policy on this subject in DOD Instruction, 
3020.41, entitled ``Contractor Personnel Authorized to Accompany the 
U.S. Armed Forces.'' My views on this subject are consistent with that 
policy. If confirmed, I would enforce that policy at SOCOM.
    In general, contractor personnel may support contingency operations 
through their indirect participation in military operations, by 
providing communications support, transporting munitions and other 
supplies, performing maintenance functions for military equipment, and 
providing security services. However, there are numerous issues that 
need to be addressed on a case-by-case basis. DOD Instruction 3020.41 
provides a process for considering and making informed judgments on 
those issues.
                                 ______
                                 
                Questions Submitted by Senator Evan Bayh

               UNMANNED AERIAL VEHICLE (UAV) REQUIREMENTS

    6. Senator Bayh. Vice Admiral Olson, according to your testimony in 
April, SOCOM is unable to fulfill its standard UAV orbit requirement. 
It is my understanding that SOCOM's long-term budget does not contain 
enough funding to manage this gap in the short-term. If so, how would 
you address this unacceptable budgetary and requirement shortfall?
    Admiral Olson. SOCOM continues to rely on a combination of service-
provided and SOF-unique airborne Intelligence, Surveillance, and 
Reconnaissance (ISR) to help meet our needs, and our current unmanned 
aerial system roadmap already incorporates service programs such as the 
MQ-1 Predator, RQ-7 Shadow, and MQ-9 Reaper. Currently we are working 
with CENTCOM and the Joint Staff to meet the immediate surge 
requirement of SOF in that theater. At the same time, we are 
formalizing our fiscal years 10 to 15 enduring ISR requirements for 
submission to the Joint Requirements Oversight Council. Our plan is to 
maximize the use of Service programs as a means to satisfy our 
requirements.

    7. Senator Bayh. Vice Admiral Olson, what strategy would you employ 
to ensure that not only enough UAVs are in the air, but also have the 
communication infrastructure, logistical chain, and pilot/operator 
availability needed to meet this SOCOM requirement?
    Admiral Olson. We view the air vehicle as one part of a complete 
system. Our current Unmanned Aerial System (UAS) requirements include 
the communication infrastructure, logistics support, and pilot and 
sensor operator availability. Our strategy is to resource, acquire, and 
field complete systems.

    8. Senator Bayh. Vice Admiral Olson, please describe SOCOM's 
current and 5-year medium altitude UAV requirements. Are you able to 
meet current requirements now and do you expect SOCOM to be able to 
meet its medium altitude UAV requirements 5 years from now? Please 
include in your answer personnel, new or current vehicles, 
communication infrastructure, and logistical chains necessary to fill 
SOCOM's current and 5-year medium altitude UAV requirements.
    Admiral Olson. The U.S. CENTCOM, which SOCOM endorsed, and the 
Joint Staff and Joint Rapid Acquisition Cell validated earlier this 
year. We expect this requirement to be met by a combination of 
resources from across the DOD, and we are working with CENTCOM, the 
U.S. Strategic Command, and the Joint Staff to meet this need.
    We are using lessons learned from SOF combat operations in multiple 
theaters to define our future requirements for manned and unmanned 
Intelligence, Surveillance, and Reconnaissance (ISR) capabilities. Once 
codified, we will submit our fiscal year 2010-2015 ISR enduring 
requirements for submission to the Joint Requirements Oversight 
Council.

                              JOINT RANGES

    9. Senator Bayh. Vice Admiral Olson, would the use of SOF dedicated 
joint ranges, especially with respect to airspace, permit better 
training than you currently have?
    Admiral Olson. Yes. However, access to current ranges is the key 
element for SOF training. Current operational tempo for SOF and 
conventional forces has increased the range requirements for all 
Services. As SOF have few dedicated ranges, SOCOM Service Component 
Commands are required to share available times with conventional 
forces. SOCOM currently has standing memoranda of understanding with 
tenant command range managers which ensure our components access to 
ranges. Range management is best facilitated through service tenant 
organizations. The prioritization of SOCOM components in intra-service 
range scheduling would greatly assist in future range requirements.
                                 ______
                                 
              Questions Submitted by Senator Mark L. Pryor

                      SPECIAL FORCES REQUIREMENTS

    10. Senator Pryor. Vice Admiral Olson, what is the timeline 
required to grow the force and increase the number of operators in the 
field?
    Admiral Olson. SOCOM plans to add 5 Special Forces battalions, 
which will consist of 444 personnel per year beginning fiscal year 2008 
through fiscal year 2012.

    11. Senator Pryor. Vice Admiral Olson, what aviation requirements 
will be needed to compliment an increase in the numbers of future 
Special Forces units?
    Admiral Olson. We will need a mix of SOF fixed-wing, rotary-wing, 
and tilt-rotor aircraft (both manned and unmanned) to provide SOF 
mobility, strike, and Intelligence, Surveillance, and Reconnaissance 
(ISR) capability. Currently programmed increases in SOF aviation 
capacity adequately address our current growth in the Future Years' 
Defense Program. In fiscal year 2008, we are beginning a 
recapitalization program for our SOF-tanker force. Recapitalizing our 
fleet of 37- to 40-year-old aircraft will increase our mobility 
capacity through improved aircraft capabilities and readiness of the 
fleet. In conjunction with this recapitalization effort is a study on 
the overarching long-term SOF mobility requirements. This study will be 
completed in the fall 2007. We are also working with Office of the 
Secretary of Defense and the Services to acquire a fleet of small and 
medium commercial variant military aircraft to fill a critical 
capability gap. This small fleet of commercial variant aircraft will 
have the ability to move small SOF teams in friendly but politically 
sensitive areas in support of the global war on terrorism.

                          JOINT CARGO AIRCRAFT

    12. Senator Pryor. Vice Admiral Olson, what role will the Joint 
Cargo Aircraft play in SOCOM?
    Admiral Olson. The JCA will have a role in providing intra-theater 
airlift, where US military presence is acceptable, for SOFs just as C-
17s, C-5s, C-130s and Operational Support Aircraft currently support.
    That being said, JCA can only support a small part of the overall 
SOF airlift requirement. There is no ``one-size-fits-all'' solution 
when it comes to moving SOFs. SOF requires flexibility in platforms so 
that small teams can be moved and supported in austere locations with 
maximum efficiency and most importantly--with limited visibility.

                               BODY ARMOR

    13. Senator Pryor. Vice Admiral Olson, what type of body armor does 
SOCOM use?
    Admiral Olson. The SOFs approved standard body armor system 
consists of the Releasable Body Armor Vest (RBAV), hard armor plates, 
soft armor inserts, and Modular Supplemental Armor Protection (MSAP). 
This body armor system falls under the Special Operations Personal 
Equipment Advanced Requirements (SPEAR) program line.

    14. Senator Pryor. Vice Admiral Olson, what is the directive toward 
body armor systems such as Dragon Skin?
    Admiral Olson. SOCOM's Special Operations Personal Equipment 
Advanced Requirements (SPEAR) body armor system is the only approved 
SOCOM product authorized for use.

             MARINE CORPS FORCES SPECIAL OPERATIONS COMMAND

    15. Senator Pryor. Vice Admiral Olson, what has been the impact of 
Marine Corps Forces Special Operations Command (MARSOC) to SOCOM?
    Admiral Olson. Each of the Services bring unique mission 
capabilities to SOCOM, MARSOC included. MARSOC brings with it the 
culture and heritage of the United States Marine Corps. MARSOC's unique 
contributions to SOCOM are rooted in this history as a sea-based, 
expeditionary force with a long history of mission success. In addition 
to forces that are trained from the start to operate in an integrated 
sea-air-ground, MARSOC also brings capabilities that are in the highest 
demand globally: MARSOC command and control, intelligence, 
counterintelligence, canine operations, interrogators, and other 
specialized capabilities that can be employed in support of MARSOC or 
other SOF units. MARSOC units also provide a force multiplier on the 
battlefield, as integral elements of Marine Expeditionary Units with a 
direct relationship and connection to Theater Special Operations 
Commands and other theater SOF From its inception 24 February 2006, 
MARSOC has had and continues to have significant global war on 
terrorism effects in both developing our partner nations' CT 
capabilities in four of the five Global Combatant Commands (no 
opportunity in Northern Command yet), and in providing combat forces 
for CENTCOM operations. All 15 Marine Special Operations Advisory Group 
(formerly Foreign Military Training Unit) deployments to date have been 
to global war on terrorism Priority and High Priority countries, and 
both deployed Marine Special Operations Companies have been employed in 
Operation Enduring Freedom in Afghanistan. MARSOC has a little over 
half of its programmed strength, and as it continues to grow it will 
increase critical SOCOM capacity for both the indirect and direct lines 
of operation for the war on terrorism. From four Foreign Military 
Training Unit deployments in fiscal year 2006, Marine Special 
Operations Advisory Groups will deploy to 14 or more events in fiscal 
year 2007 and are currently slated for 28 deployments in fiscal year 
2008. The Marine Special Operations Companies provide an integrated SOF 
connection to deployed Marine Expeditionary Units, and provide Global 
Combatant Commanders a force multiplier as a result. The companies are 
employable as independent SOF units or as a supporting element to the 
Marine Expeditionary Unit or other theater or coalition forces.
    The bottom line is that in a very short time, MARSOC has been a 
very beneficial SOF force multiplier for SOCOM.

    16. Senator Pryor. Vice Admiral Olson, what is the unique 
contribution of MARSOC toward SF operations?
    Admiral Olson. Each of the Services bring unique mission 
capabilities to SOCOM, MARSOC included. MARSOC brings with it the 
culture and heritage of the United States Marine Corps. MARSOC's unique 
contributions to SOCOM are rooted in this history as a sea-based, 
expeditionary force with a long history of mission success. In addition 
to forces that are trained from the start to operate in an integrated 
sea-air-ground, MARSOC also brings capabilities that are in the highest 
demand globally: MARSOC command and control, intelligence, 
counterintelligence, canine operations, interrogators, and other 
specialized capabilities that can be employed in support of MARSOC or 
other SOF units. MARSOC units also provide a force multiplier on the 
battlefield, as integral elements of Marine Expeditionary Units with a 
direct relationship and connection to Theater Special Operations 
Commands and other theater SOF.
                                 ______
                                 
    [The nomination reference of VADM Eric T. Olson, USN, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 10, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Navy to the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C, section 601:

                             To be Admiral

    VADM Eric T. Olson, USN, 0000.
                                 ______
                                 
    [The biographical sketch of VADM Eric T. Olson, USN, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
       Transcript of Naval Service For VADM Eric Thor Olson, USN

 
 
 
24 Jan. 1952..............................  Born in Tacoma, Washington
30 June 1969..............................  Midshipman, U. S. Naval
                                             Academy
06 June 1973..............................  Ensign
06 June 1975..............................  Lieutenant (junior grade)
01 July 1977..............................  Lieutenant
01 Aug. 1982..............................  Lieutenant Commander
01 Sep. 1988..............................  Commander
01 July 1994..............................  Captain
29 July 1999..............................  Designated Rear Admiral
                                             (lower half) while serving
                                             in billets commensurate
                                             with that grade
01 July 2000..............................  Rear Admiral (lower half)
19 Sep. 2002..............................  Designated Rear Admiral
                                             while serving in billets
                                             commensurate with that
                                             grade
01 Oct. 2003..............................  Rear Admiral
02 Sep. 2003..............................  Vice Admiral, Service
                                             continuous to date.
 


Assignments and duties:

------------------------------------------------------------------------
                                                     From         To
------------------------------------------------------------------------
U.S. Naval Academy (Administrative Assistant)...   June 1973   Oct. 1973
Naval Amphibious Base, Coronado, San Diego         Oct. 1973   Apr. 1974
 (DUINS)........................................
Underwater Demolition Team Twelve (Assistant       Apr. 1974   Dec. 1976
 Officer in Charge).............................
SEAL Team One (Platoon Commander)...............   Dec. 1976   June 1978
U.S. Military Observation Group, United Nations    July 1978   Jan. 1980
 Truce Supervision Organization (DOD United
 Nations Military Observer).....................
Naval Amphibious School, Coronado, CA (Swimmer     Jan. 1980   Sep. 1981
 Delivery Vehicle Training Division Officer)....
Defense Language Institute, Monterey, CA (DUINS)   Sep. 1981   Apr. 1983
XO, SEAL Delivery Vehicle Team One..............   Apr. 1983   Dec. 1984
Naval Postgraduate School, Monterey, CA (DUINS).   Dec. 1984   Dec. 1985
Defense Language Institute, Monterey, CA (DUINS)   Dec. 1985   Mar. 1986
U.S. Military Liaison Office Tunisia (Joint        Apr. 1986   June 1988
 Service Programs and Training Officer).........
Naval Special Warfare Center, Coronado, CA         June 1988   July 1989
 (Director of Strategy and Tactics Group
 Department)....................................
CO, SEAL Delivery Vehicle Team One..............   July 1989   July 1991
Commander, Special Boat Squadron Two (Squadron     July 1991   Aug. 1993
 Commander).....................................
Joint Special Operations Command, Fort Bragg, NC   Aug. 1993   July 1994
 (CG Special Assistant, NAVSPECWARFARE Issues)..
Commander, Naval Special Warfare Development       July 1994   June 1997
 Group (Commander)..............................
Joint Special Operations Command, Fort Bragg, NC   June 1997   Aug. 1999
 (Chief of Staff)...............................
Commander, Naval Special Warfare Command........   Aug. 1999   Aug. 2002
Office of the CNO (Director, Strategy and Policy   Aug. 2002   Aug. 2003
 Division) (N51)................................
Commander, U.S. Special Operations Command         Aug. 2003    To date.
 (Deputy).......................................
------------------------------------------------------------------------


Medals and awards:
    Silver Star
    Defense Superior Service Medal with Bronze Oak Leaf Cluster
    Legion of Merit
    Bronze Star with ``V'' Device
    Defense Meritorious Service Medal with Bronze Oak Leaf Cluster
    Meritorious Service Medal with two Gold Stars
    Joint Service Commendation Medal with Bronze Oak Leaf Cluster
    Navy and Marine Corps Commendation Medal
    Combat Action Ribbon with one Gold Star
    Joint Meritorious Unit Award with one Bronze Oak Leaf Cluster
    Navy Unit Commendation
    Meritorious Unit Commendation with two Bronze Stars
    National Defense Service Medal with two Bronze Stars
    Armed Forces Expeditionary Medal with one Bronze Star
    Vietnam Service Medal with one Bronze Star
    Southwest Asia Service Medal with two Bronze Stars
    Armed Forces Service Medal
    Sea Service Deployment Ribbon with two Bronze Stars
    Navy and Marine Corps Overseas Service Ribbon with two Bronze Stars
    Coast Guard Special Operations Service Ribbon
    United Nations Service Medal
    Kuwait Liberation Medal (Kingdom of Saudi Arabia)
    Kuwait Liberation (Kuwait)
    Rifle Marksmanship Medal with Silver ``E''
    Pistol Marksmanship Medal with Silver ``E''

Special qualifications:
    BS (Business Administration) U.S. Naval Academy, 1973
    MA (Foreign Affairs) Naval Postgraduate School, 1985
    Designated Joint Specialty Officer, 1988

Personal data:
    Wife: Marilyn Olson of Yonkers, NY
    Children: Daniel S. Olson (Son), Born: 24 November 1986; Alyssa D. 
Olson (Daughter), Born: 9 August 1989.

Summary of joint duty assignments:

------------------------------------------------------------------------
           Assignment                    Dates                Rank
------------------------------------------------------------------------
U.S. Military Liaison Office      Apr. 1986-June 1988  LCDR
 Tunisia (Joint Service
 Programs and Training Officer).
Joint Special Operations          Aug. 1993-July 1994  CDR
 Command, Fort Bragg, NC (CG
 Special Assistant,
 NAVSPECWARFARE Issues).
Joint Special Operations          June 1997-Aug. 1999  CAPT
 Command, Fort Bragg, NC (Chief
 of Staff).
Commander, U.S. Special             Aug. 2003-To Date  VADM
 Operations Command (Deputy).
------------------------------------------------------------------------

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by VADM Eric T. 
Olson, USN, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Eric T. Olson.

    2. Position to which nominated:
    Commander, U.S. Special Operations Command.

    3. Date of nomination:
    May 10, 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 24, 1952; Tacoma, Washington.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Marilyn Olson (Maiden Name: Marilyn Cannata).

    7. Names and ages of children:
    Daniel S. Olson, 20; Alyssa D. Olson, 17.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    UDT-SEAL Association.
    UDT-SEAL Museum Association.
    U.S. Naval Academy Alumni Association
    Military Ofifcers Association of America
    U.S. Naval Institute
    Special Forces Club (U.K.)

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                  Eric T. Olson, Vice Admiral, USN.
    This 1st day of May, 2007.

    [The nomination of VADM Eric T. Olson, USN, was reported to 
the Senate by Chairman Levin on June 26, 2007, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on June 28, 2007.]
                              ----------                              

    [Prepared questions submitted to Hon. Thomas P. D'Agostino 
by Chairman Levin prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                       DUTIES AND QUALIFICATIONS

    Question. Will the duties of the Under Secretary for Nuclear 
Security change or remain the same if you are confirmed for the 
position, and if there are any changes proposed, what are those 
changes?
    Answer. If confirmed as the Under Secretary for Nuclear Security, I 
expect the duties of the position to remain the same as they have been, 
at least for the near-term. If confirmed, I would work with the 
Secretary to clarify those duties and modify them, if appropriate. I am 
not aware of any currently proposed changes to the duties of the Under 
Secretary for Nuclear Security.
    Question. What background and experience do you possess that you 
believe qualify you to perform these duties?
    Answer. The duties of the Under Secretary for Nuclear Security are 
clear--to lead the men and women of the National Nuclear Security 
Administration (NNSA) in their efforts to ensure America's nuclear 
security. My background and experience is well suited for these duties. 
As an officer in the U.S. Navy, I was selected by Admiral Rickover and 
trained as a nuclear submarine officer. In this capacity, I managed 
technically complex, high-hazard operations on nuclear submarines. This 
training instilled a commitment to quality, discipline, and integrity 
that are so important when dealing with nuclear operations. After over 
8 years on Active-Duty in the submarine force I continued to serve in 
the national security arena as a Naval Reserve Officer, as a propulsion 
systems program manager for the Seawolf (SSN21) submarine, and in a 
variety of positions in the Department of Energy (DOE). My background 
within DOE includes a wide variety of both technical and management 
positions; in the areas of tritium reactor restart, as Deputy Director 
in the Office of Stockpile Computation, as the Deputy Director for 
Nuclear Weapons Research, Development and Simulation, as the Assistant 
Deputy Administrator for Program Integration in the Office of Defense 
Programs, and most recently, as the Deputy Administrator for Defense 
Programs, leading the $5 billion Stockpile Stewardship Program (SSP). I 
was recently asked to serve as the Acting Under Secretary for Nuclear 
Security, coincidental with the submission of fiscal year 2008 budget 
request to Congress and accompanying testimony. This quickly educated 
me about the details of other programs in NNSA such as Defense Nuclear 
Nonproliferation. If confirmed, I would continue to learn more about 
the scope of the NNSA's nonproliferation expertise and 
responsibilities, but I believe my background and experience are well 
suited for the role of Under Secretary for Nuclear Security.
    I earned a Masters in Business-Finance from John Hopkins University 
and a Masters in National Security Studies from the Naval War College. 
I have almost 31 years of service in both the U.S. Navy and as a civil 
servant. I have attained the rank of Captain in the Naval Reserve. All 
of my professional experience has been focused on service (military and 
civilian) in support of our national security. I am privileged to have 
been able to serve my country and am confident that this combination of 
service and education qualifies me to perform the duties of the Under 
Secretary for Nuclear Security.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Under 
Secretary for Nuclear Security?
    Answer. The importance of the position of Under Secretary of 
Nuclear Security demands that anyone who holds that position must 
always be abreast of current developments in not only nuclear security 
but also national security as a whole. I believe I am aware of the 
scope of the duties of the position, but expect to focus my near-term 
efforts on broadening my knowledge base of initiatives outside of 
NNSA's Defense Programs.
    As I have stressed as Deputy Administrator for Defense Programs, 
good communication within NNSA and with our colleagues in DOE, with 
Congress, with the Department of Defense (DOD) and with other 
stakeholders is essential. Clear and effective communication is a 
primary key to success in any organization, and even more important 
with an organization that is large, geographically dispersed and that 
manages complex technical operations. I would look to increase the 
amount of time I spend talking to all levels of management, technical 
and support staff, in headquarters and the field.
    Question. Assuming you are confirmed, what additional or new duties 
and functions, if any, do you expect that the Secretary of Energy would 
prescribe for you other than those described above?
    Answer. I am not aware of any additional duties and functions that 
the Secretary of Energy would prescribe for me, other than to 
efficiently and effectively manage the operations of NNSA. If 
confirmed, I would work with the Secretary to clarify his expectations.

                             RELATIONSHIPS

    Question. If confirmed, how will you work with the following 
officials in carrying out your duties:
    The Secretary of Energy.
    Answer. I will work with the Secretary as I have as the Deputy 
Administrator for Defense Programs and as I did during the period I 
served as the Acting Administrator earlier this year. I have come to 
understand the Secretary's leadership style quite well while serving in 
these positions. His door has always been open to me and I look forward 
to working with him on cross-cutting issues for NNSA and the 
Department.
    Question. The Deputy Secretary of Energy.
    Answer. I will work with the Deputy Secretary as I have as the 
Deputy Administrator for Defense Programs and as I did during the 
period I served as the Acting Administrator earlier this year. I have 
become familiar with the Deputy Secretary's his leadership style while 
serving in these positions. The Deputy Secretary serves as the 
Department's Chief Operating Officer and we have regular interaction on 
crosscutting NNSA and departmental issues.
    Question. The Deputy Administrators of the NNSA.
    Answer. The Deputy Administrators are the direct reports to the 
Administrator of NNSA. These individuals bring a great wealth of 
knowledge and policy expertise in their assigned areas. I know all of 
the current Deputies and Associate Administrators very well and look 
forward to leading them if confirmed. It's critical to the 
organization's success that I have complete trust in these individuals 
in order to carry out the NNSA mission.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. The Under Secretary of Defense for Acquisition, Technology, 
and Logistics, Kenneth J. Krieg, is also the Chairman of the Nuclear 
Weapons Council (NWC), which is the focal point for the relationship 
between DOE and DOD. The NNSA Administrator is DOE's NWC member and 
deals directly with the Under Secretary of Defense on nuclear security 
issues.
    Question. The Under Secretary of Defense for Policy.
    Answer. The Under Secretary of Defense for Policy, Ambassador Eric 
S. Edelman, is a member of the NWC, which is the focal point for the 
relationship between DOE and DOD. The NNSA Administrator is DOE's NWC 
member and deals directly with the Under Secretary of Defense on 
nuclear security issues.
    Question. The Secretaries of the Navy and the Air Force.
    Answer. Relationships with the Secretaries of the Navy and the Air 
Force are important to issues related to nuclear security. NNSA 
generally deals with the uniformed Services more than the Service 
Secretaries through the NWC system. As a former Navy officer and 
current political appointee, I am well aware of the importance of 
civilian control of the military. If confirmed as an Under Secretary, I 
would seek to nurture relations with the Secretaries of the Navy and 
the Air Force.
    Question. The Commanders of U.S. Strategic Command and U.S. 
Northern Command.
    Answer. The Commander of U.S. Strategic Command, General James E. 
Cartwright, is a member of the NWC. The NNSA Administrator works with 
the Commander of U.S. Strategic Command on a wide variety of 
significant nuclear weapons issues such as the annual assessment of the 
safety, reliability and performance of the nuclear weapons stockpile. I 
have established a good working relationship with General Cartwright in 
my current job and look forward to continuing that relationship if 
confirmed.
    NNSA will continue its current close cooperation with Northern 
Command, primarily in the area of Emergency Operations. We have worked 
closely with NORTHCOM on exercise planning and have been full 
participants in both the Ardent Sentry and Vigilant Shield series of 
exercises. In fact, during last December's Vigilant Shield exercise the 
NNSA assigned a liaison officer to the NORTHCOM Headquarters in 
Colorado Springs for the duration of the exercise. We will continue 
this effort to ensure full and integrated operations in the case of a 
real emergency.
    Question. The Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict.
    Answer. The Office of Special Operations and Low Intensity Conflict 
is included in our overall support to and coordination with DOD in a 
number of areas. As part of our support, we have provided a full-time 
resident liaison to Special Operations Command to facilitate access to 
the unique capabilities of DOE's national laboratories and to enhance 
the already close working relationship with DOE and NNSA.
    If confirmed by the Senate, I will make sure that DOE'S unique 
nuclear capabilities, skills and assets are available to DOD or any 
other Federal entity.
    Question. The Assistant to the Secretary of Defense for Nuclear and 
Chemical and Biological Defense Programs
    Answer. The Assistant to the Secretary of Defense is the Chairman 
of the NWC Standing and Safety Committee, the flag officer or Senior 
Executive Service ``working level'' group in the NWC system. In my 
experience, the Deputy Administrator for Defense Programs and his 
Principal Assistant Deputy Administrator have more regular contact with 
the Assistant to the Secretary of Defense than the NNSA Administrator, 
but I would encourage close coordination with DOD at all levels within 
the NNSA and DOE. The Assistant to the Secretary of Defense plays a key 
role in the NWC system, so I view the NNSA's relationship with that 
office as vitally important. The Director of the Defense Threat 
Reduction Agency also reports to the Assistant to the Secretary of 
Defense, so if confirmed, I expect to work with the Assistant to the 
Secretary of Defense on matters generally outside the NWC system, such 
as nonproliferation.
    Question. The Director of the Defense Threat Reduction Agency.
    Answer. The Defense Threat Reduction Agency (DTRA) works with the 
NNSA's Offices of Defense Programs, Defense Nuclear Nonproliferation, 
and Emergency Operations on a number of issues, ranging from individual 
weapon system Project Officer Groups to hosting DTRA-sponsored work at 
NNSA sites and collaboration on nonproliferation issues. If confirmed, 
I would expect the Deputy Administrators for Defense Programs and 
Defense Nuclear Nonproliferation to work most directly with the 
Director of DTRA, but I would maintain contact with the Director, as 
well.
    Question. The Director of National Intelligence and other senior 
leaders of the Intelligence Community.
    Answer. DOE is a member of the Intelligence Community. Within DOE, 
the Director of the Office of Intelligence and Counterintelligence has 
primary responsibility for the Department's interactions with the 
Director of National Intelligence and other Intelligence Community 
components. Each of the NNSA national laboratories maintains a Field 
Intelligence Element (FIE) that carries out analysis and technical work 
to fulfill DOE's intelligence responsibilities.
    If confirmed, I will continue to give my strong support to this 
cooperation and ensure that the Intelligence Community continues to 
have excellent access to the NNSA labs through the existing 
Intelligence Work-for-Others process.
    Question. Officials in the Department of Homeland Security with 
responsibilities for nuclear homeland security matters
    Answer. NNSA has a close working relationship with the Department 
of Homeland Security (DHS) at all levels. I will continue to draw upon 
these working relationships and try to improve upon them through closer 
coordination on matters affecting the Nation's security.
    I assure you that my staff and I, particularly my Associate 
Administrator for Emergency Operations, will continue the cooperative 
relationships we have built since the Department of Homeland Security 
was created. For example, we will continue to work closely in updating 
the National Response Plan (NRP) to define and refine the Federal 
Government's responsibilities in the event of radiological or nuclear 
emergencies and incidents. Our two organizations will continue our good 
work on the National Incident Management System (NIMS), the National 
Preparedness System, and the comprehensive Homeland Security Exercise 
Program where we test our abilities to respond to many types of 
incidents in addition to radiological and nuclear emergencies. We will 
continue to work closely with DHS's Domestic Nuclear Detection Office 
(DNDO) as partners to assess the Nation's radiological or nuclear 
vulnerabilities and risks, to mitigate radiological or nuclear threats, 
and to develop a robust technical nuclear forensics capability in 
cooperation with DNDO's National Technical Nuclear Forensics Center 
(NTNFC).
    Finally, we stand ready to execute our responsibilities under the 
National Response Plan to deploy our Nuclear Incident Response Team 
(NIRT) and fulfill our responsibilities under the Homeland Security Act 
for domestic radiological or nuclear events. For example, should an 
improvised nuclear device be discovered in the United States, we would 
give our full support to the Department of Homeland Security as the 
overall incident manager and to the Federal Bureau of Investigation 
(FBI) as the lead law enforcement agency. We have worked hard to forge 
these cooperative relationships and I can assure you that we will 
continue this collaborative approach.
    Question. Officials in the Department of State with responsibility 
for nuclear nonproliferation matters
    Answer. NNSA works closely with the Department of State in the area 
of nuclear nonproliferation and, if confirmed as the Under Secretary 
for Nuclear Security, I would continue to do so. For instance, NNSA 
works in close concert with State to forward the goals of the Global 
Initiative to Combat Nuclear Terrorism. NNSA also supports State as it 
interfaces with the IAEA through the technical expertise within our 
national laboratories to work on the toughest nuclear nonproliferation 
issues we face, including Iran and North Korea.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges confronting 
the Under Secretary for Nuclear Security?
    Answer. There are a number of challenges that will need to be 
addressed in the upcoming years, and NNSA is working to intensify 
efforts on the most difficult issues by creating a small number of 
Special Focus Areas.

        <bullet> The future of our nuclear weapons stockpile and how 
        that shapes our plans for Complex 2030.
        <bullet> The role of Federal oversight, especially in the areas 
        of nuclear safety and cyber security.
        <bullet> Moving forward smartly and effectively in the 
        consolidation and disposition of special nuclear materials 
        (SNM).
        <bullet> The vision of the future for our national security 
        laboratories.
        <bullet> Enhancing project management within NNSA.
        <bullet> Enhancing NNSA's future as an Employer of Choice.

    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If I am confirmed, I will lead the effort recently 
initiated by the Acting Administrator by setting clear expected 
outcomes, identifying expected deliverables, and establishing 
timeframes for execution. Integrated Action Teams, led by senior 
executives, have been formed for each Special Focus Area to deliver on 
what needs to be done and to ensure completion. I will empower the team 
leads to have the appropriate resources and decisionmaking authority in 
their areas, and I will personally engage with each of the teams on a 
regular basis to stay informed of progress and eliminate any obstacles 
I can.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will commit my personal involvement and 
that of the management team at the NNSA to set aggressive but realistic 
time lines for all of these areas. Some of these areas have firm time 
lines already, such as a Record of Decision (fall 2008) for our Complex 
2030 effort and plans to remove all Category I and II SNM from Sandia 
National Laboratories (SNL) in the next year and from Lawrence 
Livermore National Laboratory (LLNL) by 2014. Firm timelines will be 
established for those areas that do not yet have them, and NNSA 
management and staff will be held accountable for completing actions in 
a timely manner.
    Question. Please explain the importance you place on continuing to 
ensure a unique organizational identity for the NNSA and what steps you 
would take to ensure such an identity if confirmed?
    Answer. It is very important to ensure an organizational identity 
for the NNSA. In my experience in leadership and management over the 
past 30 years, organizations are most effective when there is a clear 
mission, clearly defined responsibilities, and when members of that 
organization understand where they fit in to accomplish that mission. 
When I was named acting Deputy Administrator for Defense Programs, I 
was concerned with the organization's reputation and the efficiency of 
the program. Soon after formally take over the Defense Programs 
organization I established the organizational theme of ``Getting the 
Job Done!'' and identified a specific list of deliverables that would 
be accomplished within the following 2 years. These deliverables are 
challenging, important, and help focus the Defense Programs 
organization (both Federal employees and contractors across the nuclear 
weapons complex). To date, the theme of ``Getting the Job Done!'' has 
permeated the organization and has led to a focus of priorities and 
resources to ensure that all those in Defense Programs know what is 
expected and where our priorities lie. The ``Getting the Job Done!'' 
accomplishments by the NNSA included: delivering the B61-ALT357 first 
production unit; extracting tritium for the first time in over a 
decade; completing plutonium aging studies in pits; and just recently 
announcing that we have increased the rate of nuclear weapons 
dismantlements by 50 percent over last year's level 4 months ahead of 
schedule.
    This established identity is working in Defense Programs and will 
work in the NNSA. The key is to focus on mission priorities, ensure 
that all members of the organization understand the goals and where 
they fit in to accomplish the results.

                               PRIORITIES

    Question. If confirmed, what broad priorities would you establish 
to address the issues that would confront the Under Secretary for 
Nuclear Security?
    Answer. If confirmed, the broad priorities that I would establish 
to address the issues that would confront the NNSA and me personally 
are in the areas of safety, security, Federal oversight, and mission 
success. I plan to set clear program expectations and then focus on 
these broad areas by ensuring that everyone, both those within the NNSA 
and those that partner with us and benefit from our success, 
understands what is expected and has the resources to complete their 
objectives.

                           OVERALL MANAGEMENT

    Question. Do you believe that there are any organizational 
structure issues in the NNSA that should be addressed to improve 
management and operations of the NNSA, or that you would address if 
confirmed?
    Answer. If confirmed, I plan to closely evaluate and implement 
changes that reinforce line management oversight. The current NNSA 
structure was a radical departure from the Department's previous 
regional model, which was in place for 60 years. The NNSA approach of 
strong site offices places authority and accountability directly at the 
sites where work is actually performed. Now, 5 years later with our 
policies and governance models having matured, it is time to look at 
refocusing policy expertise to strengthen our direct line management 
functions. To that end, I hope to review and right-size all 
headquarters advisory and oversight functions based on mission need and 
rigorous workforce analysis.
    Question. On December 20, 2002, NNSA announced a plan to 
restructure its management, including a 20-percent reduction in Federal 
personnel in 5 years. That 5-year period will be up in December 2007. 
Have these goals been achieved? If not, why not?
    Answer. Yes, NNSA achieved its personnel reduction goals ahead of 
schedule at the end of fiscal year 2004.
    The reengineering effort for Federal personnel was working in two 
directions simultaneously: reducing and streamlining most sites and 
field locations, while at the same time increasing line-program areas 
experiencing major mission growth. For organizations involved in this 
reengineering (IWSA Service Center, headquarters, and the 8 site 
offices), there was a reduction of 383 FTEs, which represents a 
reduction of 20.5 percent. At the same time, the programs exempt from 
reengineering--Defense Nuclear Nonproliferation and Emergency 
Response--were increased by 43 FTEs, about 15 percent. The net change 
in NNSA's Federal staffing from 2002 to 2004 was a reduction of 17 
percent.
    NNSA has continued its aggressive efforts in workforce 
restructuring and is now ready to embark on the next phase of 
reengineering that will further adjust program staffing in line with 
future missions, and assure the transition of critical skills in the 
next several years when a ``bow wave'' of retirements is expected.
    Question. Do you believe that the expertise of DOE personnel 
serving outside the NNSA can be helpful to you if confirmed?
    Answer. I believe that the success of the NNSA is very dependent on 
the experience and support of all Departmental employees. NNSA's record 
of accomplishments and our ability to quickly address operational 
shortfalls in human capital, financial management, information 
technology, physical and cyber security, acquisition management as well 
as environmental health and the complexities of our management issues 
would not have been possible without the ability to leverage 
departmental assets as we do. If confirmed, I will continue to seek 
access to departmental talent in order to best serve our mission and 
avoid costly duplication of effort.
    Question. Specifically, what expertise do you believe would be 
helpful and how will you utilize this expertise if you are confirmed?
    Answer. I believe that the most critical expertise is the 
independent oversight provided for safety, environment, and security--
both physical and cyber security--as well as independent cost 
estimating and construction management. All of these disciplines are 
critical to NNSA and the Department's success. If confirmed, I intend 
to strengthen their involvement in our 5-year program planning and 
execution process.
    Question. Are you aware of any limitations on your authority, if 
confirmed, to draw on that expertise?
    Answer. There are no limitations on the authority of the Under 
Secretary for Nuclear Security to draw upon the expertise of DOE 
personnel serving outside of the NNSA for assistance in achieving 
NNSA's mission and fulfilling its responsibilities. Of course, the 
Under Secretary's authority to draw on such assistance is, as it is in 
other matters, subject to the ultimate authority of the Secretary to 
direct all officials within the DOE and to establish priorities for 
NNSA and all other organizations within the Department.
    Question. In the National Defense Authorization Act for Fiscal Year 
2007, the DOE intelligence function was combined with the 
counterintelligence functions of NNSA and DOE into one single 
departmental office.
    How is this change working in your view?
    Answer. NNSA continues to receive excellent support from the 
combined counterintelligence organizations. In fact, the organizational 
change has brought about greater synergy and the NNSA is receiving the 
benefits of the consolidation.
    Question. Are there any issues that are not being addressed or 
addressed in an insufficient manner?
    Answer. No.
    Question. Would you recommend any changes to the combined 
organization?
    Answer. At this point in time, I would not recommend any changes to 
this combined organization if confirmed.
    Question. What is your view of the extent to which the NNSA is 
bound by the existing rules, regulations, and directives of DOE and 
what flexibility, if any, do you believe you would have in implementing 
such rules, regulations, and directives?
    Answer. NNSA must comply with rules, regulations and directives 
issued by the Secretary of Energy. The Under Secretary for Nuclear 
Security is responsible for ensuring that NNSA and its contractors 
comply with these requirements. Some rules and regulations provide 
specific exemption procedures that NNSA can invoke if the Under 
Secretary concludes an exemption is warranted. In addition, the DOE 
Departmental Directives Program Manual provides a general exemption 
procedure that allows NNSA to deviate from DOE directives requirements. 
The Manual also permits Departmental elements, including NNSA, to issue 
``supplemental directives'' that may be used to implement requirements 
in directives, assign responsibilities and establish procedures within 
a particular Departmental element. Finally, under the NNSA Act, the 
Under Secretary has the authority to issue NNSA-specific policies, 
``unless disapproved by the Secretary.''
    Question. NNSA, in large measure, was created in response to 
security lapses at the Los Alamos National Laboratory (LANL). However, 
security lapses, particularly at Los Alamos, have continued to occur. 
Section 3212(b)(10) of the National Defense Authorization Act for 
Fiscal Year 2000 provides that ``the Administrator has authority over, 
and is responsible for all programs and activities of the 
administration, including administration of contracts, including the 
management and operations of the nuclear weapons production facilities 
and the national security laboratories.''
    If confirmed, what would be your plan to make sure that security 
lapses do not continue at the NNSA facilities?
    Answer. While there have been some high-visibility security lapses 
within the NNSA since its establishment, I believe we have made 
significant progress in improving the physical and cyber security of 
our nuclear weapons complex. The Associate Administrator for Defense 
Nuclear Security and the NNSA Chief Information Officer have both 
brought increased formality to the headquarters management of their 
security programs and we are seeing improvements. If confirmed, I 
intend to strengthen our Federal line oversight of security to 
establish common expectations by which we exercise our legal and 
contractual authorities to ensure the security of our critical national 
security assets. I also intend to continue the strong partnership we 
have with the Department's Office of Health, Safety, and Security and 
the Department's Chief Information Officer to develop the policies and 
rules necessary for effective security systems.
    Question. If confirmed, what policies would you institute to 
improve the manner in which managers of NNSA facilities deal with 
security matters?
    Answer. There needs to be a formal process for establishing clear 
security performance expectations down to the lowest level of the 
organization, then holding people and organizations accountable for 
meeting those expectations. My approach to addressing these issues 
would be to continue the work we have already started, which is to put 
greater emphasis on our capabilities to actively manage the security 
program. This approach has four major thrusts:

        <bullet> Reducing the number of security areas and operations 
        will allow us to focus our attention and resources on 
        revitalizing the protection system components that provide the 
        foundation for good security.
        <bullet> Ensuring that we have a highly qualified Federal 
        staff, in the right numbers, to actively manage and oversee the 
        NNSA security program.
        <bullet> Promoting stronger functional accountability within 
        the security program by creating stronger lines of authority 
        and accountability between the HQ and the field.
        <bullet> Providing comprehensive oversight of field security to 
        assess contractor performance against the expectations--
        rewarding good performance and providing penalties for 
        ineffective performance.

    I am very pleased to report that we have made significant progress 
in our security management and oversight capabilities, and we have 
developed some very promising approaches. For example, we have 
established peer reviews and Performance Assurance Assessments for 
improving the interactions and collaborations between the sites and HQ. 
I am confident that these initiatives will result in better performance 
expectations and a much stronger security program. If confirmed, I 
would actively work with the Principal Deputy to ensure these focus 
areas are fully developed and implemented.

               DEFENSE NUCLEAR NONPROLIFERATION PROGRAMS

    Question. What do you see are the highest priorities of the 
nonproliferation programs at NNSA?
    Answer. The highest priorities in the nonproliferation programs are 
to fulfill the President's commitments made under the Bratislava 
Nuclear Security Initiative to complete nuclear security upgrades at 
Russian facilities by the 2008 deadline. Another priority is the 
repatriation of high enriched uranium from around the world to more 
secure locations in the U.S. or Russia, and the conversion of HEU-
fueled reactors to use LEU fuel. In addition to these specific 
challenges, the nation faces emerging threats of the sort presented by 
a nuclear-capable North Korea and an Iranian regime apparently bent on 
acquiring or developing nuclear weapons. We must continue our efforts 
to combat nuclear terrorism by helping. other countries better secure 
their nuclear materials, eliminating excess materials, preventing the 
export of sensitive technologies, engaging foreign scientists with 
meaningful work in peaceful commerce, and by detecting illicit 
trafficking in nuclear and radiological materials.
    Question. While the bulk of the nonproliferation programs at NNSA 
continue to be focused on the states of the former Soviet Union, a 
growing number of programs are focused on states other than the former 
Soviet Union. Do you believe that there are additional opportunities 
for cooperation with states outside of the former Soviet Union? If 
confirmed what would be your priorities in these areas?
    Answer. NNSA does work in nearly a hundred countries around the 
globe. Many of our efforts--Megaports, Sister Labs, Safeguards, Export 
Control, and certainly our Global Threat Reduction Initiative--are all 
aimed at working with other nations to increase their capacity, and 
thus our own, to deter, prevent, detect proliferation of WMD materials, 
technology, and expertise. If confirmed, I would expand these bilateral 
and multilateral programs where necessary to achieve the purpose for 
which they are intended--to protect this Nation as far from U.S. shores 
as possible.
    Question. What do you believe is the greatest challenge in the 
nonproliferation programs with Russia?
    Answer. NNSA's programs with Russia have been, on the whole, very 
successful in the past several years. We have created an environment of 
mutual trust and understanding with our Russian counterparts, and high 
level attention, such as the Bratislava Nuclear Security Initiative, 
have helped us accelerate our efforts in selected, critical areas. The 
nature of our relationship with Russia has transitioned from a donor-
recipient relationship to one of partnership. They are planning on 
playing an ever larger role in financing portions of some of these 
nonproliferation efforts, and we are eager to work with them in areas 
associated with expanded use of nuclear power. We see them as strong 
partners in this arena. Our biggest remaining challenge is to 
completely transition some of the bilateral assistance programs (such 
as MPC&A) to full Russian funding and to ensure that those programs 
receive the Russian commitment, funding and budget attention required.
    Question. In your view what are the three greatest unmet 
nonproliferation problems? Would you propose to address these needs if 
confirmed? What resources or cooperation would you need to meet such 
needs?
    Answer. North Korea remains one of the largest nonproliferation 
problems we face. We have expertise in our complex that stands poised 
to work with the State Department and the IAEA should agreement be 
reached to dismantle North Korea's nuclear facilities. Until that time, 
we must be vigilant in preventing North Korea from exporting its 
nuclear material, technologies and know-how to others, including 
terrorists. We can do this by helping those in the region improve their 
detection capabilities, helping to train border guards and other 
officials to recognize dual-use technologies, and by strengthening the 
export control regime worldwide. A second challenge remains the sheer 
amount of nuclear and radiological material that exists all over the 
world. There is an urgent need to reduce the amount of excess material, 
to convert research reactors that use HEU to LEU, and to ensure that a 
renaissance in nuclear power does not also result in the proliferation 
of weapons of mass destruction. Better export controls, strengthened 
safeguards technologies, a Reliable Fuel Supply, GTRI and GNEP all play 
an important role. Finally, we need better detection capability. So we 
need to focus more of our R&D effort on novel approaches to standoff 
nuclear and radiological detection that will not impede trade flows or 
impose unnecessary burdens on the world's commerce.

                               MEGAPORTS

    Question. NNSA has worked to expand the Megaports program as 
quickly as funding and agreements with host countries are available. 
What are the current limiting factors in further acceleration of the 
Megaports program and, if confirmed, how would you address these 
factors?
    Answer. As you are aware, the Megaports Initiative has expanded 
quickly over the past 2 years. There are 21 agreements in place for 
cooperation on this important nonproliferation program. We have been 
well supported with funding, especially with the recent fiscal year 
2007 supplemental of $72 million. We are continuing our outreach 
efforts with host governments and expect to complete additional 
agreements soon with Malaysia, Indonesia, Jordan, Pakistan, Turkey, and 
Yemen. The greatest limiting factor in the Megaports program is the 
fact that we cannot simply drop into another country and set up 
radiation detectors wherever we think they are required. We need the 
assent and cooperation of foreign partners, including both foreign 
governments and private port operators. Issues of national sovereignty, 
data-sharing arrangements, and concerns about potential operational 
impacts at foreign ports all play a role in our ability to move this 
program forward. The Megaports program has been very successful thus 
far and appears to be poised for further successes.
    Question. The Megaports program is coordinated with other work that 
the Department of Homeland Security (DHS) is carrying out in foreign 
ports. In your view are there opportunities to improve cooperation with 
DHS?
    Answer. NNSA has developed a close working relationship with DHS 
and its various components, including Customs and Border Protection 
(CBP) and the Domestic Nuclear Detection Office (DNDO). The link with 
CBP is crucial to coordinating our Megaports Initiative with DHS's 
Container Security Initiative. We are also working closely with DNDO in 
the development of a global nuclear detection architecture, and in 
evaluation and procurement of next generation radiation detection 
technologies. NNSA's success is clearly linked to that of DHS in these 
important areas. NNSA is a critical partner in this relationship with 
our experience and expertise in international nuclear nonproliferation 
programs, nuclear materials and weapons science, and implementation of 
international security projects. If confirmed as the Under Secretary 
for Nuclear Security, I will continue this close partnership with DHS.
    Question. One of the continuing challenges to the Megaports 
program, as well as other programs designed to detect nuclear and 
radiological materials, is that the materials that could pose the 
greatest risk, plutonium and highly-enriched uranium (HEU), are the 
most difficult to detect. NNSA has the responsibility for basic 
detection research and development programs. While other agencies, such 
as DHS, have responsibility for near term development efforts, the DOD 
has responsibilities as well.
    Are the various detection efforts fully coordinated, or do you 
believe that additional efforts at coordination are needed?
    Answer. I understand that NNSA's nonproliferation research and 
development work has broad applicability to a number of Federal 
agencies. If I am confirmed as the Under Secretary for Nuclear 
Security, I will make an effort to focus on NNSA's research and 
development, as well as the coordination process with other Federal 
agencies, and see if additional efforts of coordination might be 
needed.

               NONPROLIFERATION RESEARCH AND DEVELOPMENT

    Question. In addition to the detection technologies mentioned 
above, NNSA has responsibility for a broad range of research and 
development efforts.
    If confirmed what would be your nonproliferation research and 
development priorities?
    Answer. I firmly believe that one of this Nation's great treasures 
is its scientific and technical capability, a significant portion of 
which resides in our national laboratory system. Should I be confirmed, 
I would direct our nonproliferation R&D program to continue its 
coordinating efforts with other appropriate elements of the Federal 
Government in developing novel approaches to the problem of standoff 
detection of nuclear weapons-related materials. I would also seek 
improved capabilities for rapid post-event attribution and analysis.
    Question. Do you believe that there are research and development 
areas that need more attention or funding?
    Answer. As to funding, the President's request for nonproliferation 
research and development funding represents an appropriate balance 
between needs and resources. However, to the extent that our policies 
and requirements change with world events, I would certainly reassess 
the need for additional resources as required. As to specific areas of 
attention, should I be confirmed, I would direct our nonproliferation 
R&D program to continue its coordinating efforts with other appropriate 
elements of the Federal Government in developing new and novel 
approaches to the problem of standoff detection of nuclear weapons-
related materials. I would also seek improved capabilities for rapid 
post-event attribution and analysis.

                     FISSILE MATERIALS DISPOSITION

    Question. The United States and Russia have each committed to the 
disposition of 34 tons of weapons grade plutonium so that it will not 
be used for weapons purposes. This is a very expensive program and has 
had many difficulties associated with it.
    What is the current status of the U.S. and Russian efforts to agree 
upon a mutual date to complete disposition of the respective 34 tons of 
weapons grade plutonium?
    Answer. Russia has proposed to dispose of its 34 metric tons of 
weapon grade plutonium as mixed-oxide (MOX) fuel primarily in the BN-
600 and BN-800 fast reactors. Because this proposed disposition 
scenario is consistent with its national energy strategy, for the first 
time, Rosatom has proposed funding a significant portion of the program 
itself. Our view is that this commitment should be perceived as a major 
success.
    NNSA is currently working with Russia to define the details of the 
Russian plan in order to ensure that appropriate proliferation concerns 
regarding fast reactors are addressed and we expect to reach agreement 
later this summer. Our current estimate is that both sides will 
complete disposition of 34 metric tons each of weapons grade plutonium 
in the 2035-2040 timeframe.
    Question. What plans are there to dispose of additional amounts of 
weapons grade plutonium?
    Answer. The Department is currently evaluating the cost and 
technical feasibility of using the MOX Fuel Fabrication Facility in 
South Carolina for the following potential missions: 1) to dispose of 
up to 9 metric tons of impure plutonium currently proposed for 
disposition in DOE'S planned small-scale Plutonium Vitrification 
process; 2) to dispose of additional weapons grade plutonium (beyond 
the 34 metric tons) expected to be declared surplus as plutonium 
requirements are reevaluated and dismantlements accelerated in 
connection with transformation of the nuclear weapons stockpile; and 3) 
to fabricate start-up fuel for fast reactors in support of the Global 
Nuclear Energy Partnership, once a decision on the fuel form for fast 
reactors has been made.

                       WEAPONS PROGRAMS PERSONNEL

    Question. If confirmed, what specific steps would you take to 
retain critical nuclear weapons expertise in both the NNSA and the 
contractor workforce?
    Answer. Retaining and developing critical nuclear weapons expertise 
is essential to the long-term vitality of the nuclear weapons program. 
As Deputy Administrator for Defense Programs, I am personally involved 
in a number of specific steps designed to retain critical nuclear 
weapons expertise in both the NNSA and the contractor workforce. If 
confirmed as the Under Secretary for Nuclear Security, I would look to 
the NNSA management team to continue this work, with my continued 
personal involvement. Some specific steps we are currently taking 
include: 1) participation of early career designers in the Reliable 
Replacement Warhead designs at the national laboratories; 2) re-
establishing an interagency effort to identify critical skills as a 
step towards gaining a clearer picture of the relative supply and 
demand for our highly trained personnel; 3) refining the methodology to 
use in identifying those skills likely to be at risk in the future due 
to shortages of appropriately educated and trained U.S. citizens; 4) 
utilizing the NNSA Future Leaders Program, where new college graduates 
with engineering and business administration degrees are recruited to 
work at the NNSA in management-track positions; 5) fully supporting 
work such as the Defense Science Board's Task Force on Nuclear 
Deterrence Skills, led by Admiral (retired) Henry Chiles.
    I am very aware of the potential shortage of critically skilled 
workers at NNSA and our contractors due to impending retirements and 
the declining number of American citizens seeking graduate degrees in 
relevant fields, and realize there is no immediate fix for the 
situation. We need to continue to make working with the nuclear weapons 
program attractive to critically skilled workers, by offering 
competitive wages and benefits, but also by stressing the opportunities 
to contribute to national security by working with the best scientific 
tools in the world.
    Question. Do you support retaining the capability to remanufacture 
every component expected to be found in the stockpile in the near term? 
What are the most pressing remanufacturing needs?
    Answer. A key objective of stockpile and nuclear weapons complex 
transformation is to eliminate the need to retain the capability to 
remanufacture every component expected to be found in the present 
stockpile. Some existing components are problematic to make or involve 
hazardous materials that we want to eliminate. I support changes to 
transform the current weapons complex. The most pressing 
remanufacturing needs are for nuclear components in weapons. 
Specifically in the near-term, we need more efficient ways to 
manufacture parts in secondaries produced at our Y-12 National Security 
Complex. For the long-term, we need to resolve inadequacies in our 
capability to manufacture plutonium pits consistent with meeting 
national security requirements.

                     STOCKPILE STEWARDSHIP PROGRAM

    Question. The SSP has successfully supported the annual nuclear 
weapons certification effort for the last 15 years. Other than the 
National Ignition Facility what other capabilities, if any, would be 
needed to ensure that the stockpile is safe, secure, and reliable 
without nuclear weapons testing?
    Answer. The SSP is a highly integrated program that encompasses 
everything related to supporting the nuclear weapons stockpile so that 
it is safe, secure, and reliable without nuclear weapons testing. The 
large variety of capabilities in the SSP are complementary and work 
together to add confidence in assessing the state of the stockpile as 
it ages and as we pursue stockpile transformation. The National 
Ignition Facility has never been seen as the only capability needed for 
stockpile assessment. Its benefits in the areas of inertial confinement 
fusion and ignition will aid greatly in our knowledge of nuclear 
weapons, but only in concert with other capabilities such as those 
offered by the Advanced Simulation and Computing program, the stockpile 
evaluation program, and other parts of the SSP. The Secure 
Transportation Asset and safety basis work are two areas of the SSP 
that could be overlooked at the expense of high-profile facilities, but 
they are essential for the entire program to function as designed.
    Question. In your view is the SSP fully coordinated with DOD?
    Answer. In my view, the SSP is well coordinated with DOD. Through 
the NWC system, the DOE and the DOD communicate priorities and 
requirements on a continual basis. While DOD is not asked to 
``approve'' every element of the SSP, DOD is fully aware of SSP plans 
through regular briefings and information exchanges at levels up to and 
including the Secretaries of Energy and Defense. The SSP only exists to 
fulfill the nuclear weapons stockpile requirements set by DOD and 
endorsed by the President, so it is to DOE's benefit to have as full 
coordination as possible with DOD, especially in light of limited 
resources and tough choices that need to be made about how best to 
transform the nuclear weapons stockpile and supporting infrastructure.
    Question. The NNSA is in the early stages of an effort to develop a 
new nuclear warhead to be a replacement for an existing warhead, 
without nuclear weapons . testing. This effort is the reliable 
replacement warhead (RRW) program.
    Do you believe that the SSP is capable of meeting this new 
challenge in the coming years?
    Answer. I fully believe that the SSP, as detailed in the fiscal 
year 2008 budget request and supporting material, is capable of meeting 
the challenge of transforming the nuclear weapons stockpile through a 
RRW strategy in the coming years.
    Question. If you are confirmed, and if during your tenure a problem 
arises in the RRW program that would require nuclear weapons testing, 
would you cancel the RRW program?
    Answer. A fundamental premise of the RRW program is that any 
replacement warhead would be certified and fielded without the need to 
conduct an underground nuclear test. The RRW program is intended to 
ensure, for the foreseeable future, the Nation's ability to sustain the 
nuclear weapons stockpile while minimizing the likelihood of having to 
return to underground nuclear testing. By relaxing Cold War design 
constraints (e.g., maximum yield in a minimum size/weight package), the 
RRW program will allow us to design replacement warheads that will 
provide the same military capabilities as the legacy warheads they 
replace, while incorporating improved performance margins, reduced 
uncertainties, and integration of advanced safety and security 
features.
    In recent years, our stockpile surveillance program has discovered 
anomalies that could only have been resolved by a test during the era 
of nuclear testing. Today, we are able to resolve those anomalies 
through the use of our Stockpile Stewardship tools.
    The increased margins in RRW systems would further decrease the 
likelihood of a technical issue requiring a test to resolve. 
Replacement warhead designs will be designed to provide more favorable 
reliability and performance margins than those currently in the 
stockpile, and will be less sensitive to incremental aging effects or 
manufacturing variances. It is anticipated that the RRW, designed with 
large margins, would be less susceptible to an anomaly or defect 
requiring testing than legacy stockpile warheads.
    Question. When do you anticipate the 2006 annual stockpile 
memorandum will be completed?
    Answer. DOE and DOD are currently coordinating final formulation of 
the fiscal year 2007-2012 Nuclear Weapon Stockpile Memorandum. Staff 
within each Department have been working very hard to get the 
memorandum finalized, signed, and sent to the President. I anticipate 
it will be submitted to the President soon.

                    NUCLEAR MATERIALS CONSOLIDATION

    Question. Maintaining nuclear weapons materials at sites 
dramatically increases security costs and requirements. DOE and the 
NNSA have been working for many years to develop a materials 
consolidation plan to consolidate these materials at a smaller number 
of sites to reduce security costs. One of the sites that has been 
waiting for many years to move its nuclear materials is LLNL.
    Maintaining nuclear weapons materials at sites dramatically 
increases security costs and requirements. DOE and the NNSA have been 
working for many years to develop a materials consolidation plan to 
consolidate these materials at a smaller number of sites to reduce 
security costs. One of the sites that has been waiting for many years 
to move its nuclear materials is LLNL.
    In your view, is it possible to move the material in the next 12 
months? Is there capacity at the Device Assembly Facility (DAF) or at 
LANL or at the Savannah River Site (SRS) to accept this material?
    Answer. LLNL has both excess materials and materials needed to 
support current mission requirements. There will be no significant 
security cost savings until both programmatic and excess materials are 
removed from the site. Some, but not all, of the excess material is 
packaged and ready for shipment. We can begin to ship excess materials 
offsite in fiscal year 2008, assuming the availability of 
transportation assets and a receiver site. For most excess materials, 
the plan is to move the materials directly to the site where they will 
be processed for final disposition. The proposed disposition path for 
most of the excess material at LLNL is through the SRS. SRS has 
capacity to accept materials packaged in long-term storage containers, 
but very limited space to accept other packages.
    LANL has insufficient space to accept the LLNL excess material, and 
has its own excess materials that must be removed to make room for 
programmatic materials from LLNL. Excess materials could potentially be 
moved to the DAF at the Nevada Test Site, but because of concerns about 
mission compatibility and extremely limited material handling/
processing capabilities, DAF is not an ideal solution.
    Question. What is your understanding of the overall plan to 
consolidate NNSA material?
    Answer. Most HEU materials have been consolidated to the Y-12 
National Security Complex. NNSA plans to continue to dispose of excess 
HEU materials and consolidate remaining materials within a much smaller 
security perimeter at Y-12. NNSA is currently removing all Category I 
and II SNM from SNL, with completion expected later this calendar year. 
In the longer term, NNSA plans to remove all Category I and II SNM from 
LLNL by 2014, and from LANL by 2022. Excess materials will be removed 
from LLNL and LANL as storage and disposition capabilities are made 
available at receiving sites. Programmatic materials from LLNL will be 
moved to LANL, the DAF at the Nevada Test Site, or other sites as 
appropriate. Long-term planning will not be finalized until after 
issuance of the Supplement to the Stockpile Stewardship and Management 
Programmatic Environmental Impact Statement-Complex 2030.
    Question. In your view, are efforts to achieve consolidation of 
materials storage adequately coordinated between DOE and NNSA?
    Answer. Coordination between DOE and NNSA on consolidation of 
nuclear materials has been very good. The NNSA has been working with 
the DOE Office of Environmental Management to schedule the removal of 
excess materials from Y-12, SNL, LLNL, and LANL. NNSA is coordinating 
with the DOE Office of Nuclear Energy to transfer sodium-bonded HEU, 
currently stored at SNL, for consolidation with similar materials at 
Idaho National Laboratory. Similar plans are under development for 
consolidation of uranium-233 and plutonium-238 materials.
    The major impediment to material consolidation is the availability 
of storage space and disposition processing capabilities. Coordination 
between all programs is essential to take advantage of remaining 
storage and processing capacity and capability. Development of new or 
replacement processing capability is also needed.' NNSA is coordinating 
with other DOE program offices to assure that new processing 
capabilities have the appropriate capabilities and capacity for 
efficient disposition of materials, regardless of current program 
owner.
    Secure transportation assets are managed within the NNSA for the 
entire DOE, but must be made available to support DOE materials 
consolidation actions. The highest materials consolidation priority 
within the Department is removal of SNM from the Hanford Site. We will 
continue to work with all program offices to ensure mission-critical 
transportation support is available as required, and materials 
consolidation activities are supported as effectively and efficiently 
as possible.

                     FACILITIES AND INFRASTRUCTURE

    Question. The Facilities and Infrastructure Recapitalization 
Program (FIRP) was established to address long-deferred maintenance 
backlogs in the nuclear weapons complex, particularly at the 
manufacturing facilities.
    Is it your understanding that FIRP is on track to address the 
maintenance backlog on schedule by the end of 2013, as stipulated in 
law?
    Answer. The FIRP is a well run program which continues to 
significantly improve the physical condition of the nuclear weapons 
complex. However, there remains a large backlog of deferred maintenance 
across the complex. Under the current financially constrained Future-
Years Nuclear Security Program, the FIRP will be unable to fully meet 
its commitment to address the deferred maintenance backlog by the end 
of 2013.
    Question. In your view, has the Readiness in the Technical Base and 
Facilities (RTBF) program adequately addressed current maintenance 
issues or is a new backlog being created?
    Answer. The RTBF program is addressing current maintenance issues 
at our most important program facilities. However, our program 
infrastructure is aging and increased maintenance investment is 
required to maintain facility availability. To ensure the highest 
priority maintenance issues are addressed, RTBF program managers have 
worked with field elements over the last 18 months to screen and 
prioritize over 5,000 program facilities into two defined mission 
dependency categories, consistent with Federal Real Property Council 
and Departmental guidance. The first category, Mission Critical, 
consists of those program facilities that are necessary to conduct 
mission work and complete program milestones. The second category, 
Mission Dependent (Not Critical), represents a larger number of support 
facilities needed to enable the completion of important program work. 
As a result of targeted investments from the RTBF program and the FIRP, 
facility conditions for our Mission Critical facilities are in the good 
to excellent range as compared to industry standards, and our Mission 
Dependent facilities are in satisfactory condition. While challenges 
remain to minimize the maintenance backlog as we consider program 
changes that may present opportunities to shrink weapons complex 
footprint, the RTBF program is adequately structured and managed to 
ensure priority maintenance issues at our most important facilities are 
addressed in a timely manner.
    Question. In your view, what specific standards should be applied 
to ensure that the RTBF program meets current and future maintenance 
needs across the nuclear weapons complex so that additional scope is 
not added to FIRP?
    Answer. Currently, NNSA is working with the DOE'S Office of 
Engineering and Construction Management to consider additional 
standards and facility sustainment models that could be applied to 
ensure maintenance is adequately addressed for all DOE facilities. 
Given the age of many program facilities and known budget constraints, 
we may decide to increase maintenance backlogs at select NNSA 
facilities that do not have an enduring program need, but this will not 
result in increased FIRP scope. During the next 5 years of the Future 
Years Nuclear Security Plan, pending program decisions related to long-
term program requirements may also result in additional opportunities 
for consolidation of capabilities. As program capabilities are 
consolidated, near-term maintenance backlog increases may occur until 
excess facilities and infrastructure assets are dispositioned.
    Question. If confirmed, what steps would you take to ensure that 
surplus buildings are torn down or transferred so that they will not 
need long-term maintenance?
    Answer. Surplus buildings are a concern for the NNSA. Total NNSA 
parametric cost estimates for decontamination and demolition (D&D) for 
the period of fiscal year 2006 to 2010 have been reported as 
approximately $530 million, with LANL, LLNL, and the Y-12 National 
Security Complex as the largest contributors. D&D is a key to our 
continuing modernization of the complex, and our commitment to worker 
safety and health.
    NNSA has several efforts underway to address our inventory of 
surplus buildings. First, for our legacy contaminated buildings we work 
closely with the Office of Environmental Management, the departmental 
organization responsible for addressing unfunded environmental 
liabilities and for executing the work. Second, NNSA has had a very 
successful demolition program underway for most of this decade--the 
Facilities Infrastructure and Recapitalization Program. This well-run 
and cost-efficient program has to date achieved a footprint reduction 
of 2.7 million gross square feet. If confirmed I will provide 
appropriate emphasis on ensuring that surplus buildings are torn down 
or transferred so that they will not need long-term maintenance.
    Question. Would you support including the cost of tearing down 
those buildings that are being replaced within the total project cost 
of any new construction?
    Answer. Yes. Report language in the Fiscal Year 2005 Energy and 
Water Development Appropriations Bill specifically states:

          ``The costs of D&D for the facilities that are being replaced 
        be included in the costs of all construction projects and 
        identify such D&D costs clearly in the construction project 
        data sheet.''

    I support this approach, and if confirmed, will continue to do so. 
Demolition is a key tool to reducing the size of the Nuclear Weapons 
Complex, streamlining operations, and assuring worker safety and 
health.
    Question. What is your understanding of the schedule for tearing 
down the old administration building at LANL?
    Answer. The Nuclear Security and Science Building (NSSB) project 
was completed on schedule and approximately $5 million under budget in 
2006. The majority of the occupants of SM-43, the old administration 
building, have been relocated to the new facility. The majority of the 
SM-43 facility is now being transitioned toward disposition by wing 
closure, facility characterization, and disconnection of utilities. 
Because of the existing infrastructure at SM-43, including secure 
networks, and in anticipation of other new space becoming available in 
the near future, a portion of the facility will be maintained for 
occupancy into fiscal year 2008. Once the remaining personnel have been 
relocated, the entire facility will be closed and prepared for 
completion of D&D.
    LANL is currently in the process of placing much of the SM-43 
facility in cold-standby as part of a phased approach to facilitate 
ultimate D&D. LANL will continue to use a small portion (100,000 
square feet out of a total of over 300,000 square feet) into fiscal 
year 2008. Much of the staff (700) has been moved to other facilities 
including the new NSSB. The current strategy is to empty the facility 
by the close of fiscal year 2008 and complete D&D by fiscal year 2011.
    Question. DOE and NNSA often build one of a kind or first of a kind 
buildings.
    If confirmed, what steps would you take to ensure that NNSA 
construction projects are managed to be completed within budget and on 
time?
    Answer. If confirmed, my broad priorities would be to focus on 
ensuring that the Federal workforce is effectively performing its 
oversight mission throughout the complex. Effective oversight of the 
contractor is critical to ensuring that the complex is properly 
executing its mission. I, along with the acting Under Secretary for 
Nuclear Security, have identified six Special Focus Areas that we will 
use to drive the NNSA to improve its performance during the next 18 
months. One of these six is to Integrate Project Management Best 
Practices throughout the NNSA. As part of this effort, I would 
anticipate reviewing the management of constructions projects in 
accordance with DOE O 413.3, to include identifying best practices and 
integrating lessons learned in our performance. This review would also 
require a careful evaluation of whether the resources within the 
Federal workforce are currently adequate. NNSA has also recently 
strengthened its Independent Project Reviews to ensure that technical, 
safety, and security requirements are fully identified and integrated 
early into our construction projects and that lessons learned and best 
practices from other organizations, sites, and projects are implemented 
into our NNSA projects. These actions, along with others underway in 
the Department, will help ensure that we demonstrate improved 
performance in managing our construction projects.
    Question. What additional costing, project management and design 
skills do you believe are needed in the NNSA?
    Answer. In the area of project management, I believe we have one of 
the best project management certification programs in the Federal 
Government. We have certified over 60 individuals through this program. 
We do need to improve our ability to develop accurate cost estimates 
for our very complex projects. We rely heavily on our M&O contractors 
and our Architect Engineering firms to develop the designs for our 
facilities. The Federal job is to establish the facility requirements 
and to communicate those requirements clearly to the contractors who 
then design the facilities to meet those requirements. However, as part 
of the Deputy Secretary's direction to integrate safety into design, we 
need to have our Federal employees participate more heavily in the 
design reviews that are conducted at various points in the design stage 
of our projects. I support efforts and policies that ensure contractors 
are designing the facilities to meet our requirements in a safe manner.
    Question. At what point in the Critical Decision timeline do you 
believe an independent cost estimate should be performed for a 
construction project, and why?
    Answer. Critical Decision 2, Approve Performance Baseline, is the 
point at which we establish the baseline for our projects, and that is 
the point in the Critical Decision timeline that I believe an 
Independent Cost Estimate should be performed. However, these types of 
detailed bottoms-up cost estimates are very expensive to perform and 
should not be performed on every project but rather reserved for those 
that are sufficiently complex or technically challenging such that 
there is significant value in conducting the cost estimate.

                           OPERATIONAL SAFETY

    Question. If confirmed, what steps will you take to ensure that 
nuclear and other operational safety issues are fully addressed in the 
design of new NNSA buildings?
    Answer. If confirmed, I intend to have NNSA follow the Department's 
standard, Integration of Safety into Nuclear Facility Design. NNSA has 
been complying with the early draft of the new standard and will 
operate in full compliance with the final version when implemented. 
This new standard requires early identification of Safety Class systems 
and other safety related requirements early in the project life cycle, 
just after approval of Mission Need. These measures ensure that all 
safety requirements are articulated, validated and understood early in 
the project life cycle.
    Subsequent to Conceptual Design, configuration control in 
accordance with nuclear safety rule requirements will ensure that 
safety requirements are updated as new information becomes available. 
Compliance with the nuclear safety rule and nuclear quality assurance 
standard helps to ensure requirements are accurately translated into 
effective design features, that these design features are constructed 
correctly, that operational procedures correctly implement that both 
the design features and operator requirements essential to safety, and 
that all maintenance and operating personnel are adequately trained.
    Question. If confirmed, what steps will you take to ensure that 
nuclear operational safety issues are identified by the Defense Nuclear 
Safety Board early in any construction design process and promptly 
resolved?
    Answer. If confirmed, I will ensure that NNSA Federal employees and 
contractors continue to work closely with the Defense Nuclear 
Facilities Safety Board (DNFSB) members and staff to ensure that all 
safety concerns are understood and promptly resolved. Where such 
resolution is not possible; I will ensure that the issue is raised to 
the attention of NNSA senior management for action. I will not allow 
construction to begin on any phase of a nuclear project until I am 
satisfied that all pertinent nuclear safety issues are satisfactorily 
resolved.

                        NOTIFICATION OF CONGRESS

    Question. If confirmed, would you commit to promptly notifying 
Congress of any significant issues in the safety, security or 
reliability of the nuclear weapons stockpile?
    Answer. If confirmed as the Under Secretary for Nuclear Security, I 
will continue my practice of being open with Congress about issues and 
concerns affecting the nuclear weapons stockpile and nuclear weapons 
complex. Management and staff from the Office of Defense Programs 
routinely brief Members of Congress and congressional staff on the 
state of the stockpile and complex, as requested on specific subjects 
and on their own initiative. It is important to note that the most 
useful and comprehensive briefings and notifications come jointly from 
DOE and DOD, so Congress can get a complete picture of any concerns and 
how they affect not just nuclear warheads, but the overall nuclear 
security posture.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary for 
Nuclear Security?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Daniel K. Akaka

                 U.S. MISSILE DEFENSE SYSTEM IN EUROPE

    1. Senator Akaka. Mr. D'Agostino, in your opinion, how might your 
role as the Administrator of the National Nuclear Security 
Administration be complicated by the current problems with Russia over 
the deployment of the U.S. missile defense system in Europe?
    Mr. D'Agostino. The National Nuclear Security Administration has 
cooperated with Russia for over a decade on a number of programs to 
strengthen nuclear security and safety throughout Russia, the former 
Soviet Union, and now across the globe. This cooperation is based upon 
our mutually-shared nonproliferation objectives, and has evolved based 
upon changes in the global environment, including the post-September 11 
threat of nuclear terrorism. Our nuclear nonproliferation relationship 
with Russia has been excellent, and I believe that our shared common 
goals will allow continued cooperation on these important issues.

                                  IRAN

    2. Senator Akaka. Mr. D'Agostino, in your opinion, has the 
international community exhausted all of its options in trying to 
convince Iran to back off on its nuclear program?
    Mr. D'Agostino. The United States is working closely with its 
international partners to achieve a diplomatic solution to the threat 
posed by Iran's nuclear activities. I share the President's confidence 
that this diplomatic approach is the right strategy for our country at 
this time and fully support it.

    3. Senator Akaka. Mr. D'Agostino, some people have recently spoken 
out in the media advocating launching an attack on Iran to punish them 
for training and equipping foreign lighters who then attack and kill 
American soldiers in Iraq. What do you think would be the impact of an 
attack on Iran on international efforts to stop their nuclear program?
    Mr. D'Agostino. The United States is committed to achieving a 
diplomatic solution to the challenges posed by Iran and I support fully 
the President's policy towards Iran. As the President, Secretary Gates, 
and Secretary Rice have reiterated, military action is neither 
desirable nor inevitable. Further questions regarding Iranian lethal 
activities in Iraq are best addressed by the Departments of State and 
Defense.
                                 ______
                                 
    [The nomination reference of Hon. Thomas P. D'Agostino 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 21, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Thomas P. D'Agostino, of Maryland, to be Under Secretary for 
Nuclear Security, Department of Energy, vice Linton F. Brooks, 
resigned.
                                 ______
                                 
    [The biographical sketch of Hon. Thomas P. D'Agostino, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]

             Biographical Sketch by Thomas Paul D'Agostino

    Thomas Paul D'Agostino is the Deputy Administrator for Defense 
Programs at the Department of Energy's National Nuclear Security 
Administration (NNSA). Mr. D'Agostino directs the Stockpile Stewardship 
Program (SSP), which is responsible for maintaining the safety, 
security, and reliability of the Nation's nuclear weapons stockpile. 
The NNSA's nuclear weapons complex includes three national research 
laboratories, the Nevada Test Site, and four production plants. Mr. 
D'Agostino's nomination to be the NNSA's Administrator was sent to the 
Senate on May 21, 2007.
    Defense Programs oversees the SSP, which employs over 30,000 people 
around the country. This program encompasses operations associated with 
manufacturing, maintaining, refurbishing, and dismantling the nuclear 
weapons stockpile. Defense Programs also provides oversight and 
direction of the research, development, and engineering support to 
maintain the safety and reliability of the nuclear weapons stockpile in 
the absence of underground testing, and assures the capability for 
maintaining the readiness to test and develop new warheads, if 
required.
    In his previous assignments, Mr. D'Agostino served as the Assistant 
Deputy Administrator for Program Integration where he supported the 
Deputy Administrator and directed the formulation of the programs, 
plans, and budget for the SSP. He was also previously the Deputy 
Director for the Nuclear Weapons Research, Development, and Simulation 
Program where he directed the formulation of the programs and budget 
for the research and development program that supports the SSP. From 
1989 to 1996, Mr. D'Agostino worked in numerous assignments within the 
Federal Government in the startup of the Department's tritium 
production reactors and at the Naval Sea Systems Command as a program 
manager for the Seawolf submarine propulsion system.
    Mr. D'Agostino recently retired as a captain in the U.S. Naval 
Reserves where he has served with the Navy Inspector General and with 
the Deputy Chief of Naval Operations for Submarine Warfare in 
developing concepts for new attack submarine propulsion systems. He 
also served with the Deputy Chief of Naval Operations for Plans, 
Policy, and Operations (N3/5) in the Navy Command Center in the 
Pentagon. In this capacity, he was the French Desk Officer for the 
Chief of Naval Operations responsible for all Politico-Military 
interactions with the French Navy and served as the duty captain at the 
Navy Command Center.
    He spent over 8 years on Active-Duty in the Navy as a submarine 
officer to include assignments on board the U.S.S. Skipjack (SSN 585) 
and with the Board of Inspection and Survey where he was the Main 
Propulsion and Nuclear Reactor Inspector. In this position, he 
performed nuclear reactor and propulsion engineering inspections for 
over 65 submarines and nuclear-powered ships in the Atlantic and 
Pacific Fleets.
    Mr. D'Agostino's awards include the Navy Commendation Medal with 
Gold Stars, Navy Achievement Medal, Navy Expeditionary Medal, 
Meritorious Unit Commendation, National Defense Service Medal, 
Presidential Rank Meritorious Executive Award, and numerous other 
awards. Mr. D'Agostino is married to the former Beth Ann Alemany of 
Manchester, CT, and has two children.
    Mr. D'Agostino was nominated by the President for his current 
office on January 27, 2006, and was confirmed by the Senate on February 
17, 2006. He was sworn in on February 22, 2006. Mr. D'Agostino served 
as NNSA's Acting Administrator from January 22, 2007 to April 27, 2007.
Education:
    Naval War College, Newport, RI, MS National Security Studies, 1997 
(Distinguished Graduate); Johns Hopkins University, Baltimore, MD, MS 
Business Finance, 1992, United States Naval Academy, Annapolis, MD, BS 
Physical Science, 1980.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Hon. Thomas P. 
D'Agostino in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Thomas Paul D'Agostino.

    2. Position to which nominated:
    Under Secretary for Nuclear Security and Administrator, National 
Nuclear Security Administration, Department of Energy.

    3. Date of nomination:
    May 21, 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 17, 1959; Washington, DC.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Beth Anne Alemany.

    7. Names and ages of children:
    Anne Elizabeth D'Agostino, 20; Thomas Scott D'Agostino, 17.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    U.S. Naval War College, August 1996-June 1997, MA, National 
Security Studies.
    Johns Hopkins University, September 1992-May 1995, MS, Business 
Finance.
    U.S. Naval Academy, July 1976-May 1980, BS, Physical Science.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    July 1990-present, U.S. Department of Energy, Washington, DC.
      Jobs:

        - Acting Administrator, National Nuclear Security 
        Administration (January 22, 2007-April 27, 2007).
      Within Office of Defense Programs:
        - Deputy Administrator for Defense Programs (February 2006-
        present)
        - Acting Deputy Administrator for Defense Programs (May 2005-
        February 2006)
        - Assistant Deputy Administrator for Program Integration 
        (November 2002-February 2006)
        - Deputy Assistant Deputy Administrator for Research, 
        Development, and Simulation (October 2000-November 2002)
        - Engineer, Office of the Assistant Deputy Administrator for 
        Research, Development, and Simulation (March 2000-October 2000)
        - Deputy Director, OFfice of Stockpile Computation (June 1997-
        March 2000)
        - Engineer, Office of Economic Competitiveness (June 1992-June 
        1997)
        - Engineer, Office of Savannah River Restart (July 1990-June 
        1992)

    January 1988-present, U.S. Naval Reserves (Captain), Washington, 
DC, Inactive Reservist, S-2 status (July 25, 2006)
      Served with:
        - Navy Inspector General
        - Deputy Chief of Naval Operations for Submarine Warfare
        - Deputy Chief of Naval Operations for Plans, Policy, and 
        Operations

    May 1998-October 2005, Uniformed Services Benefit Association (life 
insurance company), Kansas City, KS
      Member, Board of Directors and Board of Advisors

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    U.S. Naval War College Foundation.
    U.S. Naval War Alumni Association.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Navy Commendation Medal with Gold Stars
    Navy Achievement Medal
    Navy Expeditionary Medal
    Meritorious Unit Commendation (Navy)
    National Defense Service Medal
    Presidential Rank Meritorious Executive Award

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Testimony before the Senate Armed Service Committee, Subcommittee 
on Strategic Forces (as NNSA's Acting Administrator), March 28, 2007.
    ``The Reliable Replacement Warhead and the Future U.S. Nuclear 
Weapons Program.'' Remarks at the National Defense University Capitol 
Hill Breakfast Seminar Series, May 9, 2007.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                              Thomas P. D'Agostino.
    This 6th day of June, 2007.

    [The nomination of Hon. Thomas P. D'Agostino was reported 
to the Senate by Chairman Levin on June 26, 2007, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on August 1, 2007.]


    NOMINATION OF HON. PRESTON M. GEREN TO BE SECRETARY OF THE ARMY

                              ----------                              


                         TUESDAY, JUNE 19, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:39 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, E. Benjamin Nelson, Webb, Warner, Chambliss, Dole, 
Cornyn, Thune, and Martinez.
    Other Senator present: Senator Hutchison.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Daniel J. Cox, Jr., professional staff member; Gabriella Eisen, 
professional staff member; Michael J. Kuiken, professional 
staff member; Gerald J. Leeling; counsel; Michael J. McCord, 
professional staff member; and William G.P. Monahan, counsel.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Gregory T. Kiley, professional staff member; 
Derek J. Maurer, minority counsel; David M. Morriss, minority 
counsel; Lucian L. Niemeyer, professional staff member; Diana 
G. Tabler, professional staff member; and Richard F. Walsh, 
minority counsel.
    Staff assistants present: David G. Collins and Fletcher L. 
Cork.
    Committee members' assistants present: Jay Maroney, 
assistant to Senator Kennedy; Darcie Tokioka, assistant to 
Senator Akaka; Christopher Caple, assistant to Senator Bill 
Nelson; Andrew R. Vanlandingham, assistant to Senator Ben 
Nelson; Jon Davey, assistant to Senator Bayh; Gordon I. 
Peterson, assistant to Senator Webb; Sandra Luff, assistant to 
Senator Warner; Anthony J. Lazarski, assistant to Senator 
Inhofe; Lenwood Landrum, assistant to Senator Sessions; Mark J. 
Winter, assistant to Senator Collins; Andrew King, assistant to 
Senator Graham; Lindsey Neas, assistant to Senator Dole; 
Russell J. Thomasson, assistant to Senator Cornyn; Stuart C. 
Mallory and Jason Van Beek, assistants to Senator Thune; and 
Brian W. Walsh, assistant to Senator Martinez.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. We're here today 
to consider the nomination of Pete Geren to a position which 
he's been serving in an acting capacity for several months, 
namely Secretary of the Army.
    What we're going to do is change the usual order of 
business here today. I know Senator Hutchison has other things 
that she must do, and so we're going to call upon her first to 
make the introductions so that she can then be free to leave if 
she wishes and miss the brilliance of my opening statement and 
other opening statements. Senator Hutchison, if you're ready we 
would call upon you to introduce our nominee.
    Senator Warner. Mr. Chairman, our other colleague is the 
co-author of this program, so maybe he could have a few 
minutes.
    Chairman Levin. We'd be delighted to call on Senator Cornyn 
as well.
    Senator Hutchison.

 STATEMENT OF HON. KAY BAILEY HUTCHISON, U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Senator Hutchison. Thank you very much, Mr. Chairman, and 
thank you so much for accommodating my schedule. It's very 
thoughtful of you.
    I'm so proud to be here to introduce Pete Geren to be 
Secretary of the Army. I started really working with Pete, 
although I knew him even before, when I was elected to the 
Senate, he was a Member of Congress, and has done a wonderful 
job. He was on the House Armed Services Committee and he has 
really had a lifetime of public service. In fact, his brother 
Charlie is also a member of the Texas House of Representatives 
and is also a good friend.
    When Pete served in Congress, he was the primary architect 
behind the transformation of the Fort Worth Joint Reserve 
Training Base from the former Carswell Air Force Base. When 
that base closed, Pete was the one who saw the possible use to 
locate Reserve assets from all the Services and consolidate 
their training in one location. Today that joint training base 
has proven to be the model for others around the country. He 
saw this benefit years ago and really was the architect.
    Pete brought his wonderful family here, who I have also 
known for years: his wife Becky and their three daughters: 
Tracy, Annie, and Mary. Clearly, they have made a sacrifice 
along with this lifetime public servant. They are strong 
supporters and sources of strength for Pete as he has had a 
continuing call to duty in Washington, despite multiple moves, 
and I think they are to be commended as well.
    With the many challenges over the past 6 years, Pete Geren 
has become the go-to person at the Department of Defense (DOD). 
When the Air Force was having difficulty after a procurement 
crisis, Pete took over as Acting Secretary of the Air Force and 
helped navigate the Service through tough times and worked 
closely with Congress on many of the DOD initiatives. Because 
of his grace, his devotion to fact, his ability to master 
detail, and the esteem in which he is held on and off the Hill, 
he is respected in both the military and civilian ranks.
    Since assuming the role of Acting Secretary of the Army, 
Pete has focused on restoring confidence in the Army Medical 
Corps, supporting the Army family, and growing the Army while 
working on the best path toward modernization. He is devoted to 
the soldiers. His first official act as Acting Secretary was to 
meet with the medical staff and patients at Walter Reed Army 
Medical Hospital. At that time he said: ``We've let the 
soldiers down and we're going to do better.''
    He knows what's best for the Army and he will make sure 
that our troops get what they need, and we all know, Mr. 
Chairman, the Army is bearing the brunt right now of our war on 
terror and they deserve to have a Secretary, hopefully 
confirmed very quickly, who is devoted to the Army, to helping 
it grow in the best possible way, but always tuned in to that 
Army family and making sure they have what they need to support 
their people who are fighting for our freedom.
    Thank you very much for letting me speak and introduce a 
good friend and also one of the best public servants I have 
ever worked with. Thank you.
    Chairman Levin. Thank you, Senator Hutchison, for your very 
valuable introduction.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman, for your usual 
courtesy. Thank you for letting me say a few words on behalf of 
Pete Geren, a great Texan and a great American.
    Senator Hutchison, the senior Senator from Texas, did an 
excellent job, as she did when Pete was nominated to be Under 
Secretary of the Army over 2 years ago, and I just want to add 
a few words on my own. I can't help but remember the statement 
of Bob Bullock, whose name Pete will recognize, former 
lieutenant governor, long-time political figure in Texas, who I 
heard one time say: ``There are two types of people in public 
life, those who want to be somebody and those who want to do 
something.'' Pete is of the latter variety. He's somebody who 
has continued to lead the United States Army and serve so ably 
in DOD and has done a superb job serving our Nation since he 
arrived at DOD in 2001.
    As Senator Hutchison noted, he is uniquely qualified as a 
former Member of Congress with four terms in the House and time 
on the House Armed Services Committee. If confirmed, this could 
be Pete's fourth major position within DOD. I don't know too 
many civilian leaders that have led two different Services, as 
Pete has done as Acting Secretary of the Air Force and of the 
Army.
    It's good to see his family here with him. One of the 
things that's impressed me about Pete's service with DOD is his 
commitment to supporting our service men and women, and 
particularly as a former Air Force brat myself, military 
families. Pete, as we all know, played a critical role in 
working to improve the quality of support to our wounded 
servicemembers and their families after the recent events at 
Walter Reed. His strong leadership at a difficult time for the 
Army and the Nation was critical to ensuring that our military 
and their families receive only the best care and support for 
their service and sacrifice for the country.
    Mr. Chairman, this committee has seen over the past 6 years 
a strong, committed, yet caring and compassionate, leader in 
Pete Geren in his various roles within DOD. In particular with 
the recent events at Walter Reed highlighting the challenges 
and providing the best health care and transitional services to 
our wounded warriors, we've seen that Pete Geren is a uniquely 
qualified leader to solve the most complex challenges within 
the Army, and I strongly recommend to the committee that they 
support this nomination by the President of Pete Geren to serve 
as Secretary of the Army.
    He's a proven leader and the Army needs his depth, his 
experience, and his commitment. I'm proud to support this 
nomination on behalf of someone who exemplifies the spirit of 
selfless service to the Nation. Thank you very much.
    Chairman Levin. Thank you, Senator Cornyn. Thank you again, 
Senator Hutchison.
    Let me first call upon you, Secretary Geren, before I give 
my statement, to introduce your family if you will.
    Mr. Geren. I'm proud to do that, Mr. Chairman. Mr. Chairman 
and Senator Warner, I'm proud that my wife and my three 
daughters are able to join me today: my wife Becky; my oldest 
daughter Tracy, who's a rising senior; my middle daughter 
Annie, who's going into the ninth grade; and Mary, who's going 
into the fifth grade.
    Mr. Chairman, they are all Texans through and through, as 
is their mother, and they miss home. I want to thank them very 
much for hanging in there with me over the years we've been in 
Washington.
    Chairman Levin. We thank you. We thank them for their 
support for their husband and their father.
    I look at your three daughters, I'm reminded of my three 
daughters who were about the same ages as your three daughters 
when I arrived in Washington. How important they were to me, to 
my wife Barbara, that they were there supporting us, because 
they're part of this job and you can't function well without 
the support of your family. We all know that. We've seen that 
over and over again. So we're grateful to them, as well as we 
are to you for your public service.
    Mr. Geren. Thank you.
    Senator Warner. I'd like to join you, Mr. Chairman, in 
those comments. I would only add that they have done more than 
hang in. They are really there behind you 100 percent, and get 
him home in the evenings. Most decisions made in the Department 
after 8 o'clock at night are reversed the next morning. So get 
him home. Save him. He's a pivotal figure in the future of the 
United States Army and our defense posture.
    I'm hopeful that the Senate will confirm you.
    Mr. Geren. Thank you.
    Chairman Levin. If he doesn't get home for dinner, you can 
blame us. We're probably the ones who kept him busy answering 
our questions.
    Under Secretary Geren was suddenly called upon to step up 
to his greater responsibilities as Acting Secretary of the Army 
shortly after the serious problems at Walter Reed Army Medical 
Hospital surfaced in February 2007. The Secretary of Defense 
determined that new leadership was needed to address those 
problems. Secretary Geren took prompt action to further 
identify the causes of those problems and to put in motion the 
process to begin corrective action.
    We were all dismayed to learn that the Army failed to meet 
its obligation to provide for the proper care of injured and 
wounded soldiers recuperating at Walter Reed Hospital. We were 
dismayed to learn about the physical conditions of the 
buildings and the bureaucratic roadblocks and delays, about a 
disability evaluation process in disarray.
    Just last Friday, the report of the DOD Task Force on 
Mental Health found that the stigma surrounding post-traumatic 
stress disorder (PTSD) and other mental health issues continues 
to serve as a barrier to many servicemembers seeking help. 
Additionally, the task force found that there are major issues 
with accessibility and numbers of mental health services and 
providers, stating that the ``military system does not have 
enough fiscal or personnel resources to adequately support the 
psychological health of servicemembers and their families.''
    Reports in the Washington Post on Sunday and Monday suggest 
that the Army does not have adequate programs or sufficient 
mental health staff to properly treat the 20 to 40 soldiers 
evacuated each month because of mental problems resulting from 
day-to-day intensity of combat that they face.
    I'm proud to say that this committee, working with the 
Veterans Affairs Committee, acted last Thursday to address 
those and the larger myriad of problems by approving and 
reporting to the full Senate the Dignified Treatment of Wounded 
Warriors Act. We created a center of excellence for the 
diagnosis and treatment of PTSD. We authorized a number of 
measures to improve the prevention, diagnosis, mitigation, and 
treatment of PTSD and traumatic brain injury (TBI) and we 
require an educational initiative to reduce the stigma 
associated with seeking help for those conditions. We directed 
in our bill improvements to the military's disability 
evaluation system. We require the Secretaries of Defense and 
Veterans Affairs (VA) to develop a comprehensive policy for the 
care, management, and transition from DOD to the VA of severely 
injured servicemembers.
    This bill also enhances the health care benefits for 
medically retired servicemembers and authorizes medical care 
for their family members who leave their homes and jobs to help 
care for them.
    All Americans expect that the Secretary will address these 
problems and continue to give corrective efforts to these and 
previously discovered problems, that his utmost attention is 
required to ensure that our wounded soldiers are treated in the 
manner that they so manifestly deserve and that the American 
public insists upon.
    Secretary Geren's responsibilities are sobering and his 
challenges are immense. He will lead an Army which has borne a 
huge burden since September 11, 2001, and has suffered the 
greatest number of casualties. The Army has been engaged in 
Afghanistan for over 5 years and is in its fifth year of war in 
Iraq. With the President's surge, the number of soldiers 
engaged in Iraq will approach previous high level marks. Some 
Army units are on or entering their third year of Afghanistan 
or Iraq service and some individual soldiers are in their 
fourth year. Tours of duty have been extended. National 
Guardsmen and reservists are called up for periods beyond 
anybody's expectation.
    While Americans differ in their opinions about the wisdom 
of policies behind these operations in Iraq particularly, 
Americans recognize and honor the bravery, self-sacrifice, and 
devotion to duty of our military personnel and their families.
    As for those of us in Congress, no matter how we voted on 
authorizing the war and whether we've been critics or 
supporters of the President's handling of the war, we are 
determined to see that our troops and their families are 
supported in every possible way.
    With the heaviest burden in this war falling on the Army, 
Secretary Geren's challenge, indeed the challenge for the Army, 
the Nation, and Congress, is sustaining an Army fully engaged 
in current operations while also modernizing and transforming 
that Army to meet future threats. The realities of warfare in 
the 21st century demands, in Army parlance, boots on the 
ground. It requires an Army that is optimally organized, 
trained, and equipped for anything we might ask it to do, all 
of which are the primary responsibilities of the Secretary of 
the Army. He must ensure an Army that is ready for all its 
potential missions, both today and in the future.
    Secretary Geren must deal with an Army which in order to 
sustain the readiness levels in its deployed forces has seen 
the readiness of its nondeployed forces steadily decline. Most 
of those nondeployed units are not ready. Consequently, getting 
those units fully equipped and trained for their rotations is 
difficult and risky for the Nation should these forces be 
deployed before they are ready.
    In testimony to this committee earlier this year, General 
Peter Schoomaker, then Army Chief of Staff, was direct in his 
concern for the strategic depth of our Army and its readiness. 
He was clear in his apprehensions about the short- and long-
term risks resulting from the lower readiness levels of our 
nondeployed forces. We will be looking to Secretary Geren to 
take the actions necessary to reduce that risk and to restore 
the readiness of the Army for both current and future 
contingencies.
    In a marked change of position, the administration now 
supports an increase in the Army's Active-Duty end strength by 
65,000 soldiers to 547,000 over the next 5 years. As we are now 
in year 5 of the Iraq war, the proposed increases come late. We 
all understand the stress on our forces in Iraq, but few of 
these proposed additional soldiers would be trained and ready 
to help relieve that stress in the next year or 2.
    During his own nomination hearing, General George Casey, 
Army Chief of Staff, said that he intended to see whether it 
was possible to speed up that process.
    We must guard against merely creating a larger version of a 
less ready force. Secretary Geren will have to ensure that Army 
plans for expansion are comprehensive and detailed and do all 
that he can to ensure that they are fully resourced. He must 
ensure that Congress understands what is needed to bring our 
ground forces to the levels of strength and readiness necessary 
to avoid the unacceptable risks and the readiness shortfalls 
that exist today and to modernize our Army to meet our national 
security requirements in the future.
    Secretary Geren, we look forward to hearing what you 
believe are the greatest challenges that the Army is facing and 
how you would address them as Secretary of the Army if the 
Senate confirms you to that position. Again, we thank you for 
your service. We thank your family for their support, and I 
call on Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. That was a very 
comprehensive opening statement and what I'll do is ask to put 
my statement in the record.
    I join you, of course, in welcoming the family, and I point 
out the rather extraordinary career which you've outlined in 
detail of this nominee. Since 2001, in many ways he's been 
preparing for this very moment and, subject to confirmation by 
the Senate, carrying out the duties of the Secretary of the 
Army.
    It's a great challenge. It's a wonderful job. As you go 
through life and continue your distinguished career, I doubt 
there will be one more challenging and more fulfilling than 
this.
    Service to the men and women of the Armed Forces is a rare 
opportunity. It is a deep and abiding privilege for those who 
enter that realm of what we call civilian control of the 
military. Subject to your strength, your conviction, and your 
dedication, you will earn their respect and that they deserve, 
and you have the capabilities in my judgment to give them.
    I point out Admiral Michael Mullen when it broke that he 
will be the next nominee to be Chairman of the Joint Chiefs, 
was asked what concerned him the most. He says: I lay awake at 
night worrying about the United States Army. That was a 
carefully phrased statement, but I think it's shared by all of 
those serving in the Pentagon today. That is that the United 
States Army needs the strongest of leadership at this point in 
history. I'm of the opinion that you can give that leadership 
and will give that leadership.
    I only add one word of advice and that is that I presume 
the Secretary of the Army has a regular conference with the 
Secretary of Defense. That was the way we worked it when I was 
privileged to be Secretary of the Navy many years ago. I just 
hope that you give our Secretary of Defense Robert Gates the 
best, the toughest advice that you possibly can. He's a fine 
man and he can't be expected to do the 360 degrees day-in and 
day-out. He needs the Secretaries of the Services to come forth 
and to give him the unvarnished facts, so that together the two 
of you can make the correct decisions for the future of the 
Army. I hope that you will make that commitment.
    Yesterday, we had a very good conversation in my office, as 
we've had many times together. But I was particularly impressed 
with your candor on the factual situation that faces you today, 
and particularly that vehicle that's come to the attention of 
so many people in DOD, and most specifically the Army and 
Marine Corps, the Mine-Resistant Ambush-Protected (MRAP) 
vehicle, and how you're concerned that previous decisions in 
the Department of the Army--you made that clear to me--just did 
not take into consideration the urgency and the quantity of 
those vehicles that are needed.
    I hope either in your opening comments or in the course of 
the colloquy we'll have with our witness today that you will 
point out what you intend to do to remedy that situation.
    I thank you, Mr. Chairman.
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    Thank you, Senator Levin. I join you in welcoming Secretary Geren 
and his family. I see some familiar faces out there who were with us 
last year on February 15, 2006, for Mr. Geren's previous nomination 
hearing in the Dirksen Senate Office Building. Thank you for being with 
us again today.
    At your previous nomination hearing, I noted the importance of 
family support to senior military and civilian leaders when the demands 
of the position manifest themselves. I'm sure there have been many long 
days and sacrifices by all of you. We are very appreciative of your 
support for your husband and father, and I hope you will always 
remember the importance of his service and contributions to the Army 
and the Department of Defense.
    I recall having noted at the last hearing, however, that any time 
spent at the Pentagon office after 7:30 was to be questioned since any 
decisions made are likely to be reversed by 7:30 the next morning. Can 
you comment on the validity of that theory?
    Secretary Geren, there are very few individuals who are more highly 
qualified than you to serve as Secretary of the Army. From the time you 
returned to duty, so to speak, in September 2001, you have been 
preparing for this assignment. The responsibilities of the Service 
Secretaries for the ``training, equipping, and organizing'' of the 
Armed Forces are absolutely crucial to their vitality and success. From 
my own experience as Secretary of the Navy, I can say that, while 
today's problems may dominate your attention, many of the decisions 
that you would make as Secretary of the Army will have effects for 
years to come. You may already have experienced this having previously 
served as Acting Secretary of the Air Force and now the Army.
    I won't attempt to recount all the issues which you have worked on 
and will confront if you are confirmed. You surely will be questioned 
today about the Army's strategic readiness and the effects of current 
operations on the Army's ability to respond to worldwide threats. You 
will be asked about trends in recruiting and retention in the Guard, 
Reserve, and Active Forces and the ability of the Army to meet its 
planned increase of 47,000 soldiers in 5 years. Of course, the morale 
of the force--and family members--under very difficult conditions of 
service for many soldiers--is of great concern for all of us. You 
testified on various occasions following the revelations at Walter Reed 
Army Medical Center in February of this year, and we will want to hear 
more about the Army's response and what more needs to be done 
especially in the areas of outpatient care, including mental health 
services.
    I urge you to evaluate critically and clearly the capabilities of 
the Army in meeting its mission and listen carefully to the Army's 
uniformed leaders and their views in this regard. I have publicly 
expressed my admiration and support for our magnificent All Volunteer 
Force, which has been 34 years in the making. I believe this force has 
met the challenges it faces and will continue to do so, but I am 
concerned that the force not be stretched beyond the breaking point.
    You are key to the future of the Army in this regard, and Secretary 
Gates needs your absolute best advice and counsel. I urged Secretary 
Gates in his confirmation hearing last December not to restrict his 
advice, or personal opinions, regarding current and future strategy 
evaluations, and to be fearless--fearless--in discharging his statutory 
obligations. I offer the same advice to you.

    Chairman Levin. Senator Warner, thank you so much.
    Let me now ask Secretary Geren the standard questions that 
we ask of all nominees who appear before this committee. Have 
you adhered to applicable laws and regulations governing 
conflicts of interest?
    Mr. Geren. Yes, I will.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Mr. Geren. No.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    Mr. Geren. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. Geren. Yes, I will.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Mr. Geren. Absolutely.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Mr. Geren. Yes, I will.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    Mr. Geren. Yes.
    Chairman Levin. Thank you.
    Mr. Secretary?

STATEMENT OF HON. PRESTON M. GEREN, TO BE SECRETARY OF THE ARMY

    Mr. Geren. Mr. Chairman, Senator Warner, and members of the 
committee: It truly is an honor to be before you today as the 
President's nominee to be Secretary of the Army. I want to 
thank the President for his confidence in me and Dr. Gates for 
his confidence as well. It's truly a privilege to have this 
opportunity.
    Let me thank Senator Hutchison and Senator Cornyn for their 
very kind remarks, two great leaders for our State, two great 
leaders in the Senate. I deeply appreciate, and I know my 
family does as well, their kind and generous remarks.
    Mr. Chairman, I'd also like to note Senator Hutchison's 
predecessor, who was the person who brought me into public 
life, Senator Lloyd Bentsen. Had it not been for the 
opportunity to work for Senator Bentsen, I'm confident I would 
not have the opportunities to serve in our government today. 
Senator Bentsen passed away over the past year, a great 
American, a great Senator, and I want to acknowledge my debt to 
him.
    Chairman Levin. Thank you for that, for all of us.
    Mr. Geren. Senator, I introduced my family earlier. I have, 
as you do, three wonderful girls, three great kids. Again, I 
want to thank them for standing with me and standing with Becky 
and me in our time here in Washington and all the time.
    My family and I came to Washington planning a 3-year hitch 
and 6 years later we're still here. I joined DOD in August 2001 
expecting a peacetime assignment in business transformation of 
DOD. Then came September 11 and the war. There's a sense of 
mission working among our military during time of war that's 
hard to walk away from.
    For the past 6 years, I've watched soldiers, sailors, 
airmen, and marines go off to war, and I've watched their 
families stand steadfast and unwavering in their support of 
their departed loved ones and live with the uncertainty of 
whether he or she would return home. They live with the 
certainty that there would be birthdays, holidays, 
anniversaries, graduations, and the ups and downs of everyday 
life that their loved one would miss, for 12 months originally 
and now 15 months, and too often watched those families live 
with a loss when their loved one did not return.
    I've been inspired by the selfless service of our soldiers 
and humbled by the sacrifice of their families. I've held staff 
and leadership jobs in the Pentagon over these past 6 years and 
consider it the privilege of a lifetime to have the opportunity 
to work on behalf of our men and women in our Nation's military 
and their families during the time of war.
    Our grateful Nation cannot do enough and I'm honored to 
play a part, a supporting role, in their service to our Nation 
on the front lines.
    When I came before you seeking confirmation as Under 
Secretary of the Army, I told you my top priority would be 
taking care of soldiers and their families. I reaffirm that 
commitment today with a greater understanding of that 
responsibility. My year as Under Secretary of the Army taught 
me much. My 4 months as Acting Secretary of the Army has taught 
me much more.
    We have over 140,000 soldiers in Iraq and Afghanistan. We 
can never take our eye off of that ball. They are counting on 
their Army, the big Army, to continue to provide them the 
training, equipment, and leadership to take the fight to the 
enemy and defend themselves. They count on their Army 
leadership back home to move the bureaucracy on the homefront. 
They count on their Secretary and their Chief to stand up for 
them, get them what they need when they need it.
    We must act with urgency every day, every day, to meet 
their needs. Today the issue is MRAP. Tomorrow it will be 
different. The enemy is forever changing and forever adapting.
    Mr. Chairman, further, as an Army we pledge never to leave 
a fallen comrade. That is not an abstract notion. That means on 
the battlefield, in the hospital, in the outpatient clinic, or 
over a life of dependency if that is what's required to fulfill 
this pledge.
    I have witnessed the cost in human terms and to the 
institution of the Army when we break faith with that pledge, 
as a handful did at Walter Reed. A few let down the many and 
broke that bond of trust. But I have seen soldiers, enlisted 
noncommissioned officers (NCOs), and officers respond when they 
learn that someone has let down a soldier. They step up and 
they make it right, they make it better, and they do not rest 
until the job is done, and they expect and demand 
accountability.
    I've seen the strain of multiple deployments on soldiers' 
families. A wife and a mother said recently: ``I can hold the 
family together for one deployment. Two is harder and three is 
harder still.'' Over half of our soldiers today are married 
with families. Over 700,000 children are in the families of our 
soldiers. The health of the All-Volunteer Force depends on the 
health of those families.
    We must expect that our future offers an era of persistent 
conflict. We will continue to ask much of the Army family. We 
must meet the needs of our families, provide them with a 
quality of life comparable to the quality of their service and 
sacrifice. It's the right thing to do and the future of our 
All-Volunteer Force depends on it.
    As President Lincoln pledged to us as a Nation: ``Our duty 
does not stop when our soldier or our Nation leaves the field 
of battle. We must care for those who have borne the battle, 
his widow and his orphan.'' That commitment extends over the 
horizon and we have learned we have much to do to fulfill that 
commitment.
    Lately we have come face to face with some of our 
shortcomings--a complex disability system that can frustrate 
and fail to meet the needs of soldiers, a system that often 
fails to acknowledge, understand, and treat some of the most 
debilitating, yet invisible, wounds of war, leaving soldiers to 
return from war only to battle bureaucracy at home, and leaving 
families at a loss on how to cope.
    DOD, working with the VA and this committee and this 
Congress, has an opportunity that does not come along often, to 
move our Nation a quantum leap forward in fulfillment of that 
commitment. We cannot squander this opportunity and, Mr. 
Chairman and Senator Warner, I commend this committee for the 
step forward you took last week in your bill to start the 
process of meeting the needs of those wounded warriors, and we 
look forward to working with you to push that initiative.
    Mr. Chairman, members of the committee, thank you for all 
you do for our soldiers and their families. The Army has no 
greater friend than this committee. Article 1, Section 8 of the 
Constitution makes the Army and Congress full partners in the 
defense of our Nation and in the service of our soldiers and 
their families. If confirmed, I look forward to continuing to 
work with you in discharging our duty to those soldiers.
    I look forward to your questions. Thank you.
    Chairman Levin. Secretary Geren, thank you for a heartfelt 
and a powerful statement. I can't remember that I've ever heard 
a better one, frankly, coming from a nominee. It was very 
personal and I just wish every American, every soldier, and 
every one of their families could have heard your opening 
statement.
    In your response to the committee's advance policy 
questions, Mr. Secretary, you stated that if confirmed that 
you'll conduct a comprehensive review of the Army's medical 
support requirements and how the Army can better recruit and 
retain medical, dental, nursing, and behavioral health 
personnel.
    This is obviously an urgent and a critical issue. The 
weekend's articles in the Washington Post showed that the ranks 
of licensed psychologists, for instance, have thinned in recent 
years, dropping from 450 to 350. Many psychologists who have 
left reported difficulty in handling the stress of facing such 
pained soldiers as a reason that they left. Many of the 
psychologists who remained are inexperienced to treat patients 
with PTSD like they would patients with alcohol or marital 
problems.
    The articles suggest that the Army does not have the 
infrastructure or the mental health personnel to deal with the 
large number of soldiers suffering from PTSD. They report that 
the Army has no PTSD center at Walter Reed, the place to which 
most soldiers who experience combat-related mental health 
problems are evacuated, and note that the Army's psychiatric 
treatment is weak compared with the best PTSD programs that the 
Government offers.
    The article also reports that, even though Walter Reed 
maintains the largest psychiatric department in the Army, it 
lacks enough psychiatrists and clinicians to properly treat the 
growing number of soldiers returning with combat stress.
    What is the Department doing to increase the number of 
trained, qualified, and experienced mental health professionals 
that are needed to handle this deluge of soldiers that are 
returning from this war with PTSD?
    Mr. Geren. Sir, you sum up the Army's challenges very well 
in your comments. We recognize that we have a great deal of 
work to do in this area. We have begun the process. Last week 
we executed a contract to hire 200 more mental health 
professionals in the Army, which would increase our mental 
health professionals by over 20 percent.
    It's an area of shortage. It's an area of shortage not only 
in the Army, but it's an area of shortage in the communities 
that surround our military installations. So for many 
specialties the families and soldiers can turn to the TRICARE 
system and get service in the local economy. That same shortage 
of mental health professionals exists in the communities as 
well. We recognize that.
    Acting Surgeon General Gale Pollock, that's a top priority 
of hers and I worked with her over the last few months to 
identify resources for us to expand in that area.
    Let me say some other things that we're trying to do to 
leverage resources. In a couple of weeks we're going to launch 
a train-teach program to teach everybody in the Army how to 
identify the symptoms of PTSD. We have a four-star conference 
later this week. General Casey is going to introduce it to 
those four-star generals next week. But we are still working it 
through the peer review process. We'll be working with the Hill 
as well.
    We recognize we have a challenge there, and the mental 
health professionals are one of the areas that we send 
downrange at higher percentage than any other mental health 
field because of the need in theater. But we are trying to do a 
better job of teaching our leaders in the Army to spot those 
problems before they become serious problems. We're trying to 
staff up. We're trying to work with the TRICARE system to help 
them provide more mental health care professionals outside of 
the Army system.
    Sir, I acknowledge that's a major challenge for us, and let 
me just expand it a little further: PTSD as well as TBI, are 
two of the signature wounds of this conflict, and we're working 
them, but we have a lot of work to do.
    Chairman Levin. Thank you.
    By the way, we're going to have an 8-minute round on our 
first round.
    On May 4, 2007, the Department released the findings of the 
Mental Health Advisory Team's fourth assessment of the mental 
health and well-being of soldiers and marines in Iraq. That 
team found that, among numerous other things, multiple 
deployments directly correlate with higher levels of acute 
stress and that lengthy deployments lead to higher rates of 
mental health and marital problems.
    The team found that the deployment length was more of a 
concern for soldiers than marines, who tended to have fewer 
deployment concerns than soldiers. The report is dated November 
17, 2006. That's about 5 months before it was released, for 
reasons I'm not sure I understand why there was such a delay.
    But nonetheless, that report predates Secretary Gates's 
announcement on April 11, 2007, that tours of duty for soldiers 
serving in Iraq would be extended from 12 to 15 months.
    You, in your opening statement, made very eloquent 
reference to the strain of multiple deployments on families. My 
question is, did the Army consider the findings of the Mental 
Health Advisory Team when developing the plan to extend Army 
tours to 15 months?
    Mr. Geren. Yes, sir, that's one of the many inputs that we 
considered when we made that recommendation to Dr. Gates. With 
the demand signal from theater, we were faced with two choices, 
neither of which was very good. The choice which was how we had 
been moving up until the point of that decision was waiting 
until the last minute and then extending troops in theater, 
with little warning, in some cases after they had already begun 
their redeployment home.
    The better of those two tough choices was to go ahead and 
make a decision on the 15-month deployments with the commitment 
that there would be 12 months of dwell time in between those 
deployments, recognizing that it is a very difficult strain on 
the families. We've asked much of them; with that we're asking 
more. We are going to do what we can to support those soldiers 
and their families in these deployments. It's one of the 
reasons that we have identified additional resources to put in 
family programs immediately. We've moved them in over the last 
couple weeks to support families, to help them during this 
extended deployment.
    Chairman Levin. On the question of the MRAP vehicles, the 
Army's validated requirement for MRAP vehicles is only 2,500, 
and by contrast the Marines' validated requirement is 3,700. 
The Marines' validated requirement is going to permit them to 
replace all of their up-armored Humvees with MRAP vehicles. The 
Army has said that the requirement of the Army could go as high 
as 17,000 MRAP vehicles, but there seems to be some reluctance 
on the part of the Army to validate that higher requirement.
    What is the Army's reluctance to validate the higher 
requirement for the MRAPs?
    Mr. Geren. My commitment and the commitment of the Army is 
to provide every MRAP to theater as quick as we possibly can 
that they need in theater. General Ray Odierno requested over 
17,000, a one-to-one replacement for the Humvee. The Chief and 
I asked our G-3 and G-8 to go to theater--they left several 
days ago; they got back last night--to look at that requirement 
and determine, to prioritize it and look at what the immediate 
needs are, recognizing that there are some Humvees that perhaps 
because of their mission would not need to be replaced, 
certainly not immediately, maybe not in the long-term, but 
looking at what the need is.
    They got back last night. They're going to make a 
recommendation. I can't tell you the number, but whatever that 
requirement is we're going to meet it and we're going to move 
it to theater as fast as we can. The money that you gave us a 
month ago, we committed it last week. We are using that money 
to buy a version of the MRAP vehicle. We're working with the 
Navy and the Marines to ramp up the production capacity so that 
we can get these to the theater as fast as possible. Every 
validated requirement we're going to do our best to fill.
    Chairman Levin. Mr. Secretary, in a news interview last 
weekend General David Petraeus indicated that the surge would 
not be completed and that its mission would not be completed by 
September. He said that historically counterinsurgencies have 
gone on for 9 or 10 years.
    The question is this: should the higher troop level of the 
surge continue into the spring of 2008? Several Army officials 
have said privately that units will have to be extended even 
longer than the current 15-month deployment or the dwell time 
between rotations would have to be reduced below the 12 months 
that you just mentioned. What are the implications for Army 
units if the current troop levels in Iraq and Afghanistan are 
maintained into the spring of 2008?
    Mr. Geren. We're in the process of exploring those options. 
It's too early to judge the surge. It's too early to look into 
the next year. But for the Army we have to begin to plan. We 
have to look at our options. We're exploring numerous options 
and have to look at all the components of the Army, the total 
Army. We have to look at every way that we can to support that 
demand.
    At this point in time we're not in a position to answer 
that fully. We are looking over the horizon, trying to 
anticipate what it might be and looking at the options on how 
we will fill that demand. But we're committed to filling the 
requirements that the combatant commander asks and we have been 
able to do so up until now and we will continue to do so.
    Chairman Levin. You're saying that if the surge's higher 
troop levels are continued into 2008 that there are options to 
fill those levels other than extending the deployments and 
other than reducing the dwell times? Is that what you're 
saying?
    Mr. Geren. Yes, sir. We have also the option of looking at 
the different utilization of the Guard and Reserve, different 
force mix. Also, the other Services have supported us in some 
of our ground missions up until now. Both the Air Force and the 
Navy have put troops into areas where they're not their 
conventional area of service. So we will explore all those 
options. Really, at the present time I am not able to look that 
far into the future and give you any certainty on how we would 
fill it if in fact it becomes necessary.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Mr. Secretary, how well you know that the past 18 months 
particularly there have been many opinions rendered about the 
Army: severely overstressed, overextended. Even the word 
``broken'' has been used. But to the best I can judge, the 
record clearly indicates that the Army each time has stepped up 
and met the challenge and has never, never tried to pull back 
or failed to respond to the orders of the Commander in Chief, 
whether it be the President, Commander of Central Command, the 
Chief of Staff of the Army, and others, indeed the Secretary of 
Defense.
    You and I know there are limits, limits from the standpoint 
of human endurance, family stress and strain, limits in the 
availability of equipment and so forth. We haven't reached them 
yet, fortunately, in my judgment. But what series of 
benchmarks, what series of alarms, have you put in place to 
alert you as the Secretary of the Army, if confirmed, that we 
have to make some corrective courses and indeed might require 
you to go to the Secretary of Defense and point it out and 
those deficiencies that you've discovered could well impact on 
our policy, whether it's how long we stay, to whether we can 
keep our troops there for longer periods, as the chairman said?
    What is the framework of alarm systems you have in place?
    Mr. Geren. Yes, sir. As you've noted, Senator, repeatedly, 
the All-Volunteer Force is a national treasure. This is the 
first time we have fought an extended conflict with an All-
Volunteer Force since the Revolutionary War. We were reminded 
of that over and over this past week as we celebrated the 
Army's 232nd birthday. Parallels between the Army of 1775 and 
the Army of 2007, an All-Volunteer Force in the field.
    We have to keep a close watch on all indicators of the 
health of that Army. But as you correctly point out, sir, in 
this conflict when the Nation called, our soldiers have stepped 
up time and time and time again. Perhaps the greatest indicator 
of the commitment of those soldiers and the morale of those 
soldiers is the retention rates. Our retention rates continue 
to exceed our goals. Our retention rates among those who have 
deployed exceed the retention rates of those who have not 
deployed.
    So we have an Army that continues to step up and meet the 
challenge. But we have to watch for those warning signs, as you 
alert us. The front line in identifying those warning signs is 
the NCOs and the junior officers in the field. They have to 
know what's going on mentally, emotionally, and physically with 
their soldiers, and they have to be in a position to step up 
and meet the needs of those soldiers and not let a problem 
fester there.
    We're working to try to make that front-line soldier a 
better judge of the needs of the people that he or she leads. 
This train-teach program that I talked about earlier, we're 
going to teach every leader in the Army how to spot some of the 
emotional stresses, PTSD and other mental disorders, while 
they're still in their infant stages. They're our front lines 
and all the other indicators lag those indicators that they 
see. We have to stay in touch with them.
    You look at other indicators, though, that tell us about 
the health of the force--absent without leave rates, desertion 
rates, drug use, criminal activity, accidents. We have seen 
most of those indicators hold steady. Three have not held 
steady and are troubling. Accidents have increased, as have 
suicides and divorces. One thing I've done since I've been at 
the Army is the Army senior staff gets together every 
Wednesday. We call it our balcony brief. I've added two slides 
to that brief, one is suicides and one is class A accidents 
that result in fatalities, so that our Army leadership every 
week, in addition to everything they're doing all week long, is 
alerted to those two indicators as well as the other 
indicators.
    The Army has stepped up. I have no doubt it will continue 
to do so, but we must take steps necessary to protect this 
treasure.
    Senator Warner. There are limits to human endurance.
    Mr. Geren. Yes, sir.
    Senator Warner. We have to recognize that.
    Now, there has been some indication of shortage in the 
junior grade officers, the captains and the majors, in terms of 
your retention.
    Mr. Geren. Yes, sir.
    Senator Warner. For the first time you failed to meet your 
recruiting levels. It was just by several hundred, but 
nevertheless, failed to meet the goal. I'm pleased that you in 
the Army formally announced we missed our goal on recruiting. 
That indicates a certain softness that's in the system now. Do 
you acknowledge there being softness and what steps are you 
taking to remedy it?
    Mr. Geren. Let me mention one other important area of 
emphasis for us in making sure that we meet the needs of the 
soldiers, and that's meeting the needs of the families. You can 
destroy an Army by burning the soldier out or burning the 
family out. Staying in touch with those families and supporting 
them is a key ingredient to making sure that we retain the 
health.
    We did experience this in the month of May for the first 
time in 23 months a recruiting shortfall. Our goal was 5,500. 
We made 5,100. The Guard also fell a little short of its 
recruiting goal. Over the course of this year, though, both the 
Active-Duty and the Guard are higher than our recruiting 
target. The Reserves remain a little below, in the low 90 
percent range.
    It's something we have to watch very closely. We have to. 
We are expanding our number of recruiters. We are also 
monitoring the environment in which we recruit. Many of the 
influencers are now expressing reluctance when they ought 
encourage their people.
    Senator Warner. It's the traditional family influence. We 
discussed that yesterday.
    Mr. Geren. Yes, sir, parents and other influencers.
    Senator Warner. Less enthusiastic about encouraging their 
family members to join the military. Let's face facts.
    Mr. Geren. Yes, sir.
    Senator Warner. That's a serious turn of events.
    Mr. Geren. It is.
    Recruiting remains a challenge. I believe we'll make our 
80,000 goal this year. We are on track to do that. But when you 
consider such a small percentage of the Nation steps up and 
supports our Army during this time, we have to do a better job 
of broadening the base and getting more Americans to consider 
this opportunity for service.
    Senator Warner. What about the junior officer situation?
    Mr. Geren. Yes, sir. With the junior officers, particularly 
captains and majors, we do have a shortage. Most of that 
shortage is attributable to changes in force structure with 
modularity. In 2005, we needed approximately 23,000 captains 
and majors. In 2013, we're going to need 30,000 captains and 
majors.
    We also, in addition to the brigade combat teams we have in 
theater, we have many captains and majors supporting training 
over there of the Iraqi security forces and the Iraqi military. 
So we have a 7,000 shortfall. We have seen the retention rate 
for captains and majors slide a little bit from historical 
norms, but really just a little bit. That's not a significant 
contributor to this shortfall. But the two big contributors are 
the change in force structure and then the reduction in 
accessions late in the 1990s. We're paying the price for that 
today.
    We have a program in place, a fairly robust program to try 
to address this shortage and try to grow it.
    Senator Warner. Let's turn to the important role played by 
the National Guard and the Army Reserve. More and more we've 
relied on them in this conflict. I think percentage-wise the 
only precedent is perhaps World War II, when they were all 
integrated into one fighting force. But you have to keep a 
strong Guard and Reserve. What steps are you taking in that 
area?
    Mr. Geren. Yes, sir. As you well know, with the changes 
that we made as a country in the 1990s we've grown the Reserve 
component to 55 percent of our total Army end strength. We 
cannot go to war without the Guard and Reserve, and we fight as 
one, we have to train as one, and we have to equip as one.
    One of the most important initiatives we have under way is 
an unprecedented equipment investment in the Guard and 
Reserves. From 2005 to 2013 we're going to invest about $37 
billion in the Guard and in the Reserves about $10 billion. In 
the next 18 months the Guard will get $10 billion worth of new 
equipment; the Reserves get $2.6 billion. This is just a piece 
of the effort to make sure that the Guard is properly equipped 
and is going to be ready to meet the call when we do turn to 
them, as we have repeatedly in this conflict, and they've 
performed with extraordinary distinction.
    Senator Warner. In this, as you say, conflict, two 
principally, Afghanistan and Iraq, and understandably the 
principal focus is on the needs for these conflicts. But at the 
same time, as Secretary you have to project ahead a minimum of 
a decade, indeed beyond, to put in place those programs and 
initiatives which will build America's future Army.
    Now, how are you going to do that and at the same time meet 
the extraordinary requirements of these conflicts?
    Mr. Geren. Over the history of our country, we have often 
beggared the future in the understandable interest of meeting 
the needs of the present. We cannot allow that to happen with 
this Army. The platforms that we have in theater today are 
platforms in many cases that are older than the soldiers that 
are operating them.
    The Future Combat System is our number one modernization 
priority for the Army. It's the only Army program in the top 10 
modernization programs for DOD. I want to thank this committee 
for your strong support of that system. But that system not 
only is going to replace our manned ground vehicles with 
systems that are more survivable, more capable----
    Senator Warner. My time has run out. But you have in mind 
the future Army at the same time you're building towards those 
goals?
    Mr. Geren. Yes, sir. Thank you.
    Senator Warner. The Senator from Connecticut.
    Senator Lieberman [presiding]. Thank you. Chairman Levin 
had to leave for a few moments, so he asked me to chair for a 
while. So it becomes my great pleasure as my first act to 
recognize myself to ask you the next round of questions. 
[Laughter.]
    Secretary Geren, I can't thank you enough for your service 
to our country in so many capacities. It shouldn't even have to 
be noted, but I'm proud to say you were a Democratic Member of 
Congress. You served as Commander in Chief in this Army in the 
highest tradition of nonpartisan, perhaps bipartisan, service. 
I thank you for it. It makes us all proud of you personally as 
a friend, but also it sets a model, I think, for the rest of 
the country.
    I thank you for your opening statement. I agree with 
Chairman Levin. I may have heard a better one, but I can't 
remember it this morning. It was very moving.
    I want to pick up the line of questions that both the 
chairman and the ranking member began with about the size of 
the Army as it faces the challenges that it is facing for us 
now. Just to mention, and you touched on it briefly, I think we 
will look back or historians will look back at the 1990s and 
say that we once again made a mistake that nations repeatedly 
make postwar, which is post-Cold War we reduced the size of the 
Army too drastically, generally speaking from about 780,000 to 
about 480,000. The Army therefore has felt the stress of its 
involvement in the global war on terror.
    But I will tell you what you know and every time I'm out to 
see our troops in the field, that they are meeting the call. 
They are meeting it with not only a high sense of purpose and 
honor, but with tremendous skill and effectiveness. I see some 
stress emotionally that we've talked about. But I don't see any 
diminution in the quality of service that the men and women of 
the Army are giving, and I thank you for that.
    Now, obviously we all worry, as Senator Warner said, that 
there comes a breaking point. I appreciated your answer to 
Senator Levin's question about what options we have if we 
determine, if the Commander in Chief determines, that the level 
of troop support that we have in Iraq now at the so-called 
surge level needs to be maintained, because we never want to be 
in a position where our resources determine our strategy 
instead of our resources being there to meet what our generals 
on the ground tell us they need to succeed.
    I just want to pursue a bit of that. The first is to 
emphasize and maybe ask you to give a little more content, 
where do we find the troops necessary? Talk a little bit in 
more detail about the reenlistment rate, if you would, of those 
who have been actively deployed or not?
    Mr. Geren. The reenlistment rate has exceeded our goals. In 
fact, when you look at our plan to grow the Army, our 
recruiting numbers hardly change over the next 5 years. We're 
going to grow it by 7,000 a year. Our recruiting number stays 
roughly at 80,000 every year from here on. We grow the Army 
through retention and we shape the Army with retentions in 
areas where we need to grow the Army.
    The retention has been strong. It's about 102 percent of 
our goal.
    Senator Lieberman. How do you set the goal? That's 
impressive. First, how do you set the goal?
    Mr. Geren. The goals are based on what our needs are in 
those ranks, in those grades, and how many soldiers we need in 
that area. Of course, in captains and majors we need them all.
    Senator Lieberman. So you're at 102 percent of your goal as 
of now?
    Mr. Geren. Yes, sir.
    Senator Lieberman. Obviously, the next way to go is 
recruitment, and I know that, as you've indicated, we're 
falling a little bit below. Why don't you give us more detail 
on that and break it down again in terms of Active-Duty, Guard, 
and Reserve?
    Mr. Geren. Our Active-Duty goal through the end of the year 
is 80,000. We are above target. But in May, for the first time 
in 23 months, we dropped below the monthly target. Our goal was 
5,500. We got 5,100.
    The Guard came off of a string of consecutive months of 
exceeding their goal and also fell a little short.
    Senator Lieberman. The Guard, can you give us a percentage?
    Mr. Geren. The Guard I believe is around 92 percent. I'd 
like to provide the details for the record if I could. They are 
also on track.
    I want to mention one thing the Guard has done. The Guard 
has come up with a very innovative recruiting model which the 
Reserves are now following and the Army Active-Duty is 
following as well, turning every Guardsman into a recruiter and 
giving a bonus. The program has been extraordinarily successful 
and we've learned that from the Guard. We appreciate their 
leadership in the area and we are incorporating the practices 
that they've developed to help us meet our recruiting goals. 
It's been remarkably successful.
    [The information referred to follows:]

    The Army National Guard recruiting goal through May 2007 was 3,012, 
with an actual 3,456 National Guard soldiers recruited, a percentage of 
114 percent.
    The June 2007 Army National Guard recruiting goal was 3,324, with 
an actual 3,258 Army National Guard soldiers recruited, a percentage of 
98 percent.
    The Army National Guard's recruiting goal through June 2007 was 
26,405 with an actual recruited: 28,173 (106.7 percent).

    Senator Lieberman. Senator Warner and you talked about some 
of the problems related to recruiting. Let me just step back 
for a moment and put it in this larger context. Under the 
President's budget, the plan was to move the Army to 547,000 
personnel and to do so in 5 years, which would bring us to 
2012, even 2013.
    When General Casey came before us for his first testimony 
after his confirmation hearing, I and others expressed some 
impatience with the idea that we had to wait 5 years to get the 
Army up to 547,000. He said that he was going to take a look at 
doing it more quickly and that was a priority for him, which we 
appreciated.
    I wonder if you could report to us on how that process is 
going, whether you share General Casey's goal of seeing if we 
can reach the 547,000 a lot sooner, since we're obviously in 
battle right now?
    Mr. Geren. I do share that goal and we are examining it 
right now. We're working on it daily. One of the task forces 
that we put together focuses on that. It's an issue that goes 
beyond recruiting. We have to make sure that we have the 
training bases. We have to make sure we have the barracks. We 
have to make sure we have all the support systems.
    Obviously, it would require moving the budget numbers 
around and sustaining these soldiers over the course of the 
time and that cost would begin earlier in the budget process. 
But we have told Secretary Gates that this is a matter that we 
are pursuing and considering, but I cannot tell you today that 
we've figured out how to get it done or that there is a way 
with certainty that we're going to get it done. But that's our 
commitment and we're exploring how to do that.
    Senator Lieberman. I appreciate that. You had a sentence or 
two that touched on this. Incidentally, Senator Ben Nelson is 
here and his subcommittee of this committee led the full 
committee in authorizing in the bill that we reported out of 
committee both making the 7,000 increase in personnel that the 
President recommended permanent, not temporary, and adding 
13,000 additional. So that both creates an opportunity but also 
gives you a challenge.
    I urge you to look as you suggested you might, at an array 
of different methods you might follow to increase the 
recruiting, because the fact is that we are still engaging a 
very small percentage of our overall population of eligible age 
groups in service in the military, and I hope that you'll feel 
encouraged to come back and ask for a supplemental 
appropriation to make that possible if it's necessary, because 
it seems to me that there's nothing more important to the Army 
and to the safety and success of those in it now that would 
give you the adequate personnel that you need to carry out the 
missions the country is giving you.
    Mr. Geren. Thank you. I just note very quickly, as part of 
this effort to grow the force, we're also looking at the blue 
to green program, recruiting officers from other Services, 
particularly the Air Force; also looking at opportunities to 
bring soldiers from the Reserve component onto Active-Duty. We 
have only an informal survey, but there are many who are 
interested in doing that.
    The initial enlistee, the first termers, is a part of that 
initiative. But we also have to fill out the Army, shape the 
Army. So we are looking at other ways to bring in experienced 
soldiers that can fill the other grades.
    Senator Lieberman. Good. My time is winding up, but I want 
to make one final point and if you have a quick response. I was 
struck when I was in Iraq the last time, which was about 2 
weeks ago, about how many of our personnel in uniform are doing 
non-military work. I don't mean just logistics. I don't mean 
that at all. I mean nation-building. It is in one sense quite 
impressive and I wish every American could see what the U.S. 
Army and others are doing to rebuild the government, the health 
care system, the education system, and to secure the 
neighborhoods.
    But some of that in the best of all worlds should, frankly, 
be done by people from other departments of our Government. I 
just wonder whether it's time, notwithstanding the excellence 
with which the Army particularly is doing this, to see if you 
can't get a little more help, as Ambassador Ryan Crocker seemed 
to be appealing for more help from the State Department in the 
letter to Secretary Rice that we read about this morning.
    Mr. Geren. Yes, sir, that would certainly be valuable.
    Senator Lieberman. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Senator Dole.
    Senator Dole. Thank you, Mr. Chairman.
    Mr. Secretary, I thank you for your outstanding service to 
our country, for your presentation this morning, and I 
certainly look forward to supporting your nomination.
    A number of senior officers estimates that the Army's long-
term budget outlook for about the next 10 years is about $200 
billion below what will be needed to fully fund the expanded 
Army, reset the force, and field the Future Combat System. In 
your professional opinion, are anticipated funding levels both 
over and beyond the Future Years Defense Plan adequate to 
accomplish these goals?
    Mr. Geren. Senator, in last year's budget--and I was Under 
Secretary at the time; Secretary Francis Harvey was Secretary 
of the Army and we had General Peter Schoomaker as Chief of 
Staff--we worked with the Secretary of Defense and with the 
Office of Management and Budget and were able to raise some 
issues with them and secured additional funding over the next 
5-years program.
    Dr. Gates has come to Chief Casey and me and asked us to 
present to him a plan to deal with readiness issues and we are 
in the process of doing that. We have a good working 
relationship with the Secretary and he's working with us to 
address long-term needs. I can't tell you where we will end up 
at the end of that process. But he shares our concern, your 
concern, this committee's concern, about readiness issues of 
the Army and he's working with us to try to identify ways to 
meet those needs.
    Thank you for that question. I appreciate it.
    Senator Dole. What do you believe is the single most 
important responsibility of the Secretary of the Army?
    Mr. Geren. The statutory responsibility, the Secretary of 
the Army is the senior official in the Army in fulfilling our 
statutory obligation to organize, train, man, and equip our 
Army. It's hard to say what the most important role is. By 
statute, the job of the Secretary is to present the policies, 
the requirements of the Army, to the Secretary of Defense, to 
the executive branch, and to develop the budget and advocate 
for the budget to Congress, to the Secretary, and to the 
executive branch.
    But as I think about my short time in the job as Acting 
Secretary of the Army, I think I have to put at the top of the 
list being an advocate for the soldiers and their families, 
being an advocate for the soldiers, and making sure that their 
voice is heard. The Secretary is in a unique position to act on 
those needs and it's critical that the Secretary takes that 
responsibility seriously. It doesn't show up, I guess, in the 
statute, but I would put it at the top of the list as well.
    Senator Dole. Thank you.
    If you believe that the Army is not being funded adequately 
now or in the future, will you tell this committee in plain 
terms what you believe and will you spell out for us the 
practical implications of the underfunding?
    Mr. Geren. Yes, Senator. I support the President's budget, 
but I'm going to work with the Secretary of Defense. The 
Secretary of Defense has shown us an open door to work with on 
the funding issues. I have every confidence that we, working 
with the Secretary of Defense, are going to be able to meet the 
funding needs of the Army.
    Senator Dole. Do you believe that the time has come that we 
should begin a discussion in this country of the need to fund 
our regular military budget at no less than 4 percent of gross 
domestic product? Is it time to begin that discussion?
    Mr. Geren. I don't know that I could speak to that. At the 
present time, as far as a share of our gross national product, 
the share going into our military is by historical standards 
low. But the perspective I bring on the budget is looking at it 
from the Army's needs and then going forward from there, rather 
than looking at the resources of the country and attaching a 
percentage. But certainly the percentage that's devoted to 
national security at the present time is low by historical 
standards.
    Senator Dole. Let me follow up on an earlier question. What 
do you believe should be done to substantially improve inter-
agency cooperation?
    Mr. Geren. I don't know that I have a good answer right now 
for that. Dr. Gates has been very effective in working with the 
other departments of Government and I see progress on many 
fronts as a result of that. As far as the Army and the 
leadership of the Army, most of our work with the other 
agencies flows through Dr. Gates. Now, there is an area where 
we are working very effectively, I believe, with another 
Government agency and that's the VA when it comes to wounded 
warriors and this disability system. We have a task force that 
has all the Service Secretaries on it, chaired by Secretary 
England and the Deputy for VA. I see a great constructive 
working relationship there developing and I believe it'll work 
hand in glove with the legislation that you have recently 
passed helping wounded warriors.
    Senator Dole. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Dole.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Aloha, Mr. Geren.
    Mr. Geren. Thank you, Senator.
    Senator Akaka. I'm so happy to be here with you this 
morning as you're the nominee for Secretary of the Army, and we 
have had a good prior chance to speak about other things. I 
would just like to start out by saying that I'm grateful to you 
and your family for your years of dedicated service to our 
country and for continuing to serve our country in these 
challenging times.
    To give your family a chance to stretch, I would like to 
introduce your family who's present here and welcome them as 
well: your wife Becky that's here seated in the front seat. 
Becky, welcome, and three lovely daughters: Tracy, Annie, and 
Mary. We welcome you here to this hearing for your dad.
    Mr. Geren. Thank you, Senator.
    Senator Akaka. If confirmed, you will have some extremely 
difficult challenges facing you as Secretary of the Army. With 
your background, though, I believe you are well-qualified to 
handle these challenges and to continue to lead the Army's 
modernization so that it will be ready to face any of the 
Nation's security challenges in the 21st century. I want to 
wish you well in doing that.
    Mr. Geren. Thank you.
    Senator Akaka. Secretary Geren, the Army Times last week 
reported on the massive backlog of mail delivery at Walter 
Reed. According to the article, the backlog was the fault of a 
contract employee who held onto the mail for individuals that 
he was unable to find. Have you verified that this problem is 
unique to Walter Reed and is not occurring at other medical 
centers?
    Mr. Geren. Sir, I can't tell you that it's unique to Walter 
Reed. When I learned about it last week, I called General Eric 
Schoomaker and said, we have to fix this right now, and asked 
him and asked General Pollock to assess the mail system at 
every one of our major medical centers around the country, and 
we're doing that right now.
    It's absolutely unacceptable. We had over 4,500 pieces of 
undelivered mail. In my opening remarks I talked about how it 
makes you proud to see how soldiers respond when they learn 
that somebody has let down another soldier. When General 
Schoomaker and General Michael Tucker, his deputy commanding 
general, were alerted to this problem, they immediately 
assigned 30 personnel, jumped right in the middle of those 
4,500 pieces of mail, and by midnight that night got those 
letters in the mail back to soldiers. That's the kind of 
leadership that we have at Walter Reed now and I'm very proud 
to see it, and that kind of responsiveness of soldiers taking 
care of soldiers.
    But I can't tell you that we don't have that problem 
elsewhere, and we are looking across the system to make sure 
that we do not. As you well know, there are few things more 
important than mail. I've been told if you get the food right, 
you get the mail right, you're a long way to getting your job 
done. We are working to get the mail right, sir.
    Senator Akaka. Mr. Secretary, before your time, in 2004 the 
Government Accountability Office (GAO) recommended that the 
Secretary of Defense develop and implement an action plan based 
on lessons learned from Operation Iraqi Freedom to resolve 
issues with mail delivery at that time to the troops in Iraq 
and Afghanistan. DOD in its formal review of this report 
concurred with GAO's recommendations and was at that time 
taking steps to implement them.
    Do you know if this has been done? If so, have any surveys 
of the troops been conducted to see if their satisfaction with 
the mail service has improved?
    Mr. Geren. Sir, I don't know. I'm not familiar with that 
GAO report, but I'll follow up on it and I'll get back to you.
    [The information referred to follows:]

    The Army accepted both GAO recommendations on improving mail 
delivery in theater. The first recommendation was to improve the 
quality of transit time data for postal operations by implementing a 
system that will accurately track, calculate, and report postal transit 
times. The Army initiated the use of U.S. Postal Service's ``Product 
Tracking System'' and now tracks mail delivery to troop level for any 
barcoded mail, such as Express, Insured, Certified, Registered, and 
Delivery Confirmation. The Military Postal Service Agency contracted 
with the Army Information Systems Engineering Command to complete the 
DOD Information Assurance Certification Accreditation Process (DIACAP) 
for Automated Military Postal System and the barcode scanners. DIACAP 
will satisfy the requirements for the Federal Information Security 
Management Act and accreditation for all Services. The current 
estimated completion date for DIACAP is September 2007.
    The second GAO recommendation was to determine what longstanding 
postal issues need to be resolved, and develop a specific course of 
action and timetable for their resolution. This includes: strengthening 
the joint postal planning function and specifying a body to ensure the 
implementation of postal operations in theater; deploying properly 
trained and equipped postal troops into theater prior to the mail 
build-up; and dedicating adequate postal facilities, heavy equipment, 
and transportation assets for postal operations.
    In October 2003, the Joint Service Postal Conference produced a 
Joint Services After Action Report (AAR) that was developed from the 
input of all the Services. The AAR also includes recommendations from 
postal experts that were in attendance at the Conference. The Defense 
Business Board recommended using contractors and government civilians 
to perform postal functions and on January 23, 2007, DOD Contracting 
Policy signed a memorandum, subject: Personnel Authorized to Fill/
Perform MPS Positions/Functions which provides guidance on contracting 
postal positions/functions. Postal units are trained and certified by 
the U.S. Forces Command Army Postal Program Manager and the Adjutant 
General's School before being deployed. Additionally, facilities and 
equipment have been identified and dedicated to the postal mission.

    Senator Akaka. Thank you.
    Yesterday the Washington Post reported that there continues 
to be problems at Walter Reed. The main thrust of the article 
is that at Walter Reed care for soldiers struggling with war's 
mental trauma is undermined by, one, doctor shortages; and two, 
unfocused treatment methods. Secretary Geren, since you are 
currently the Acting Secretary, can you tell us if you were 
already aware of the problems described in the article and, if 
so, what has been done about that? If you were not previously 
aware of the problems, can you tell us why we are finding out 
about the problems at Walter Reed through the Washington Post?
    Mr. Geren. Yes, sir. From the time I became Acting 
Secretary and began working in the health area, I became very 
much aware of the challenges in the mental health area. The 
mental health professionals, it's a part of our medical team 
that we send in disproportionate numbers into theater, to 
Afghanistan, Iraq, and into Kuwait. We have stressed the 
workforce of the medical professionals in the mental health 
area that was already short and we've stressed it more with 
deployments.
    The TRICARE system that supports our soldiers and families 
in many installations around the country also does not have an 
adequate supply of mental health professionals. General 
Pollock, the Acting Surgeon General, has brought the concerns 
about that to my attention and we've been working on them over 
the last few months. Last week we announced the hiring of 200 
new mental health professionals, to commence immediately. 
They're going into the workforce right now. Walter Reed is in 
the market trying to hire other mental health professionals. 
That began even before this 200, so that would be in addition 
to that.
    But we do have a shortage in that area. The workforce is 
stretched. They do extraordinary work. They do an outstanding 
job. But they need greater resources, both for the families and 
the soldiers.
    The PTSD issue, which was talked about a good bit in that 
article, is one that I'm very well aware of. General Pollock 
has developed a train-teach program for PTSD as a force 
multiplier. It's not only a problem that our mental health 
professionals can help us address, but every soldier in the 
Army we are going to teach how to spot the symptoms of PTSD so 
that we can engage early. Early engagement with somebody that's 
suffering the emotional challenges of PTSD improves their 
recovery dramatically.
    We're also looking at ways to work force multipliers in 
other areas, use our mental health professionals to train other 
people in the Army, train suicide prevention techniques to 
other soldiers. We are going to work and continue to work to 
expand our resources in the mental health area, but it's a 
tough area to fill. The private marketplace is also short of 
mental health professionals, particularly in rural areas, and 
many of our bases and installations are in rural areas or in 
areas surrounded by smaller cities. Where you may have a large 
number of mental health professionals in a major metropolitan 
area, in other cities, in small cities, you don't. So it is a 
challenge. We're working it hard.
    Senator Akaka. One of the parts of yesterday's Washington 
Post articles on Walter Reed that alarmed me and I'm sure many 
others was that the patient, Private First Class Joshua 
Calloway, was still not tested for TBI 7 months after arriving 
in Walter Reed, despite showing potential symptoms. In 
addition, one would have thought that he would have been tested 
upon arrival or shortly thereafter since he survived several 
bomb blasts while deployed in Iraq.
    According to the article, Mr. Secretary, there are 43 times 
as many troops with psychological injuries from this war as 
from physical injuries. Why then are we still failing to test 
soldiers for TBI, if you know that answer?
    Mr. Geren. We are expanding our testing for TBI. We have 
seen some of the hospitals in the system, particularly Madigan 
Army Medical Center, that have developed some good protocols. 
The Vice Chief of Staff of the Army, General Richard Cody, and 
I have worked together over the last several months. He 
developed a medical action plan and we sent tiger teams out to 
every major medical installation, tried to learn what best 
practices were, and we're working to move those best practices 
across the system.
    In the area of PTSD and TBI, we are applying more 
resources. We are applying both financial and personnel 
resources in that area. We continue to do better, and our 
mental health professionals are dedicated to that task, and I 
can assure you, Senator, that it's going to receive the highest 
attention of your Army leadership and we work it every day.
    Senator Akaka. Thank you for your responsiveness, Mr. 
Secretary. I want to wish you well and I want you to know that 
you do have my support.
    Mr. Geren. Thank you very much. I appreciate that.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Chambliss.
    Senator Chambliss. Thank you very much, Mr. Chairman.
    Mr. Secretary, thank you for your willingness to continue 
to serve. Mr. Chairman, I have known Secretary Geren since the 
first day I arrived in the U.S. House of Representatives in 
1995 and we served on the House Armed Services Committee 
together for the remaining 4 years that Pete was in the House. 
During that time, I had the opportunity to work with him on any 
number of issues in a very bipartisan way.
    I have never known anyone who has had more commitment and a 
higher interest in the men and women in our military. He has 
made sure that their quality of life and their ability to serve 
were looked after. He's one of those individuals who is 
certainly unique because of his high degree of honor and his 
high degree of integrity. He's exactly the type of individual 
that we need in leadership positions at the Pentagon in this 
very critical time in our history.
    Pete, I thank you for your willingness to continue to 
serve, as well as to Becky and the girls. It's a family 
commitment to public service. Pete, you have certainly 
exhibited everything that's good about public service in all of 
your years, and for that we thank you.
    Mr. Geren. Thank you, Senator. I appreciate that very much.
    Senator Chambliss. I just have one comment. In our visit 
the other day in my office, I mentioned to you about the 
experience I shared recently with spouses of deployed 
individuals down at Fort Stewart. I was very pleased to hear 
you talk about your commitment to the families of these 
individuals and recognize that there are some 700,000 young 
people who are children of members of the Army. In these 
difficult times and when it is such a family commitment to 
service, I'm pleased to hear you say you're going to put a lot 
of emphasis on making sure that quality of life gets better for 
these folks.
    We shared with you the letter I mentioned to you about some 
specific issues that these ladies shared with me. I would just 
simply ask you to take a look at that at your earliest 
convenience and see how we can respond to them to make sure 
that life is better for these brave men and women who are 
serving us overseas right now, particularly in Iraq and 
Afghanistan.
    Mr. Geren. I certainly will.
    Senator Chambliss. Thank you again for your service and I 
look forward to supporting you both here as well as on the 
floor as we proceed with this appointment.
    Mr. Geren. Thank you very much.
    Senator Chambliss. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Secretary Geren, I wish you well. You actually bring to 
mind one of my mentors when I first came into the Pentagon, an 
Assistant Secretary of Defense, Jack Marsh, who was a former 
Democratic Congressman serving in a Republican administration 
and did a tremendous job for our country and for the people of 
the Army, and certainly helped me when I was Assistant 
Secretary of Defense for Reserve Affairs to really get my arms 
around Army force structure issues and those sorts of things.
    Again, I wish you well. I have three questions for you. The 
first is a procedural matter, but I hope you will agree that 
timely responses to questions from people appearing before this 
committee are an essential function of what we do up here. I 
would have two comments about that.
    First, I gave a specific list of questions to Assistant 
Secretary Claude Bolton in April that are not that difficult to 
answer and we've not heard from him, and I hope you can tweak 
the system a little bit because they're important to us in 
terms of evaluating what's going on in Iraq.
    Mr. Geren. I was made aware of that yesterday and followed 
up on that last night and received an e-mail late last night, a 
commitment that they are working on it and going to move out as 
quickly as possible.
    Senator Webb. When I had the privilege of serving as a 
marine on then-Secretary Warner's staff, we had a 48-hour 
turnaround on anything that hit our desk, and the 
computerization wasn't anywhere near where it is today. But we 
rarely missed our 48-hour turnarounds. I think it would improve 
relations if those sorts of responses could come from DOD.
    Mr. Geren. I appreciate that and I commit that we'll do our 
best to respond quickly. If circumstances prevent our 
responding quickly for whatever reason, we owe you an 
explanation. We must stay in touch with you and provide you the 
information as quickly as we can.
    Senator Webb. Second, I watched your full testimony from my 
office before I came over here. I appreciate very much where 
your motivations are, and I've heard you say again how 
important it is for you to be, in your words, an advocate for 
the soldiers and their families. As you may know, I am deeply 
troubled by the 15-month deployment requirements that have been 
put on the Army, even separate from the less than one-to-one 
ratio with the 12-month dwell time back here.
    In fact, I was at a party about 10 days ago when my son got 
back from Iraq. A long-time family friend, a woman who served 
in Vietnam, her husband served in Vietnam, her son is a young 
Army officer--and by the way, she supports your President, she 
voted for your President--she came up to me and she said: ``You 
have to try to help; you have to put some sense into these 
people; these 15-month deployments are going to wreck the 
Army.''
    I'm just wondering, who was talking for the wellbeing and 
the health of the soldiers when this requirement was put down? 
I personally cannot see any element of a strategy of a 
commitment that's been going on for more than 4 years that can 
justify doing this to the soldiers and the Army and the 
families back here.
    You made a comment, and I think you're right on. I grew up 
in the military. My dad was deployed at one time for 3 years 
intermittently. I've been deployed. My son's been deployed and 
extended. When you talk about burning out an Army by burning 
out a soldier and by burning out the family, when you look at a 
lot of the difficulties that we're seeing with these people 
coming back, it seems to me that somebody needs to be a voice 
in terms of dwell time and the length of these deployments.
    Mr. Geren. Let me speak to that. Senator, I have to tell 
you that when we were forced to face the decision of how we 
were going to meet the demand from the combatant commanders and 
we considered the two options that were in front of us, one was 
to continue as we were going and make decisions on extensions 
on an ad hoc basis, and we found ourselves making them over and 
over on an ad hoc basis--in fact, we had a couple of instances 
where we had brigades, already had some of the folks back home 
when we decided to extend.
    Considering where we stand right now, in order to meet the 
demand from the combatant commander, extensions were 
inevitable, and we had to choose between having these ad hoc 
extensions and treating every unit differently with no 
predictability, no commitment on what the dwell time would be, 
or as the best in my opinion of the two bad choices, coming up 
with a 15-month extension with a commitment on 12 months.
    Now, we hope to work ourselves out of that. But considering 
where we found ourselves when that decision was made, I felt it 
was the best of the two very tough choices to make. Our goal is 
to get back to one-to-one, in fact to get better than one-to-
one. Our model makes it considerably better. But that was the 
decision that I believe was the right one.
    I appreciate the burden that it puts on soldiers and their 
families. We were asking a lot before. With this we're asking 
more. But when I consider the two options that were in front of 
us, I felt it was the better of the two.
    Senator Webb. I would submit that somebody needs to go in 
to the big boss and close the door and talk about what this is 
doing to the United States military. By the way, there is 
precedent for Congress to step in on these sorts of issues, the 
precedent being the other end of deployments during Korea, when 
troops were being sent over before they were fully trained and 
Congress stepped in and said: You're not sending anybody over 
until they have been in the military for 120 days.
    Somewhere along the lines here, I believe we need to get a 
strategy that takes into account the troops that are available 
or we're going to really see some problems, and perhaps the 
indicators that we've been seeing from these West Point classes 
may be the canary in the coal mine.
    The third question goes to force structure. I'm a real 
believer in the innovation that has taken place in the Army and 
I would commend the leadership of the Army for that. I strongly 
support the modernization programs, as you know when you came 
to see me on that. But having done a lot of work on Army force 
structure, here's a question that I would have just for my own 
reference.
    It seems to me that the Army moving into its brigade system 
still has its general officer assignments based on a divisional 
system. Am I understanding that correctly?
    Mr. Geren. I don't know the answer to that. I'd have to 
check.
    Senator Webb. That came up when I was meeting with General 
Cody. I'm just curious as to--and this could be provided for 
the record--as someone who spent a good bit of time trying to 
sort these things out, how many general officers--may I ask 
this question for the record so we can understand: How many 
general officers at what rank were in the United States Army in 
1968, when there were 18\2/3\ divisions and about 1.6 million 
people on Active-Duty? How many general officers were in the 
Army in 1986, when there were 761,000 on Active-Duty and 18 
divisions? How many general officers are in the United States 
Army today? I would like to see that relatively soon, if I may.
    Mr. Geren. I'll get back with you before the sun sets today 
on that one.
    [The information referred to follows:]

    The following information was provided to your office on June 19, 
2007.
    General officers under the modular design continue to be assigned 
at the division level. When the Army went to the modular force, it 
converted brigades to brigade combat teams (BCTs) and the appropriate 
rank for the commander is colonel. However, a BCT is a more complex 
organization than a brigade; therefore, each BCT was given another 
colonel to serve as the deputy commander. This did not have a 
significant impact on the Active component, but the National Guard has 
been transitioning from brigadier general level brigade commanders to 
colonel level BCT commanders. The division is still a necessary level 
of command, flexible to serve as a Joint Task Force, commanded by a 
two-star general, with one or two assistant division commanders.
    The table below provides the Active component numbers for general 
officers.

----------------------------------------------------------------------------------------------------------------
                           Grade/Year                                  1968            1986            2007
----------------------------------------------------------------------------------------------------------------
GA..............................................................               2               0               0
GEN.............................................................              17              11              10
LTG.............................................................              45              47              45
MG..............................................................             200             148              98
BG..............................................................             257             206             154
----------------------------------------------------------------------------------------------------------------


    Senator Webb. Thank you very much and good luck in your new 
assignment.
    Mr. Geren. Thank you very much.
    Chairman Levin. Thank you, Senator Webb.
    Senator Martinez.
    Senator Martinez. Thank you, Mr. Chairman.
    Mr. Secretary, welcome and thank you for your willingness 
to serve at this important time in our Nation's history.
    Today in the Orlando Sentinel it was reported a story which 
essentially focused on the concern in Florida that in the event 
of a serious hurricane hitting our coast this year that the 
National Guard might not be prepared to respond to such an 
event. The story did say that in fact there was equipment that 
was at 63 percent of authorized levels in helicopters and I 
believe it was 62 or 63 percent both for Humvees as well as for 
helicopters.
    General Douglas Burnett, who I believe is a terrific leader 
for our Guard and does a great job, was professing his 
confidence that they could in fact respond, as they have so 
ably in the past, we hope it would be averted, but if such an 
event should occur, I just want to know your take on this. I 
wanted to understand what you felt was the current state of 
readiness for the Florida National Guard specifically and the 
Guard in general in terms of equipment.
    Mr. Geren. Let me talk about the equipping plans for the 
Army to begin with and then talk about the hurricane 
preparedness. We have in our budget from 2005 to 2013 a really 
unprecedented level of investment in the Guard. We're starting 
from years of, to use General Schoomaker's term, holes in the 
yard. We made the Guard and Reserve 55 percent of our military 
back in the 1990s and we did not equip it properly. Our budget 
will put nearly $40 billion from 2005 to 2013 in the Guard and 
help meet many of those shortfalls. Over the next 18 months, 
$10 billion worth of equipment will go to the Guard, with a 
heavy emphasis on trucks, helicopters, and light aircraft. So 
many of the shortfalls that have been noted in much of the 
discussion of the Guard lately will be met over the next 18 
months.
    But we recognize there's more to do in the near-term to 
meet these hurricane needs. Our Active-Duty Army worked with 
The Adjutants General (TAGs) of all the States--and your State 
has great leaders on this--to build compacts to make sure that 
any equipment shortfalls that are identified that would relate 
to the hurricane season and hurricane preparedness are met. 
Last hurricane season the consortium of all the TAGs--and they 
use the term--this is an odd one, but--horizontal and vertical 
States, the Gulf Coast States and the East Coast States--that 
consortium of States, including Guam, the Virgin Islands, and 
Puerto Rico, came up with 11,000 pieces of equipment that they 
were short, and the Army provided those 11,000 pieces of 
equipment.
    This year, because of the improvements in the readiness and 
the Guard equipping, I presented the same question to them and 
the number was 2,500 pieces of equipment. We are almost, at 
least for the continental United States, at 100 percent of 
filling that 2,500. We are a little short in a couple of the 
island territories.
    General Cody, the Vice Chief of Staff of the Army, looks at 
that issue regularly. He has conference calls with the TAGs and 
asks them, do you have what you need, is there equipment that 
we can provide you? That 2,500-2,700 pieces of equipment was 
the demand that we got from the States and we have stepped up 
to fill it.
    That as well as the partnerships between the States, so you 
have regional compacts so the different States can partner in 
the event one experiences a major crisis. So in the short-term 
that's how we are working with the States to meet their needs. 
But in the long-term, we're making an investment in the Reserve 
component equipment and we'll continue to do that.
    Senator Martinez. You feel comfortable and confident that 
the Florida National Guard is capable and able to respond to a 
natural disaster in Florida with the component of the compact 
and assistance that may come to be brought to bear?
    Mr. Geren. They've certainly been able to respond in the 
past and done an extraordinary job, even in the year, as you 
know better than I, when you had four hurricanes come up the 
peninsula.
    Senator Martinez. General Burnett is very comfortable and 
confident that they can respond. I just wanted to hear your 
perspective on it, in addition to the long-term plan for 
equipment and meeting those equipment needs.
    Mr. Geren. I'm confident that we have met the needs as 
identified to us by the TAGs, and they have done a great job of 
preparing an action plan and were very specific in the kinds of 
equipment that they needed and we've gotten that equipment to 
them. I think we're about 89-90 percent overall, close to 100 
percent when you look at the continental United States. The 
average is down a little bit when you consider the islands and 
Hawaii, but we are working to deliver that right now. The 
equipment is on its way.
    Senator Martinez. Thank you.
    Chairman Levin. Thank you, Senator Martinez.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    I've had the privilege of serving with Secretary Geren in 
the House of Representatives and I can personally attest to his 
competence, his integrity, and his decency. Mr. Secretary, I 
think you're going to be a superb Secretary of the Army and I 
certainly support you.
    Let me focus on some issues, but first let me associate 
myself with Senator Webb's comments with respect to the 15-
month tours of duty. These are magnificent young men and women 
that are doing the job of soldiering in the United States Army, 
but they can only take so much. I think there's a serious, 
serious danger here going forward indefinitely that those types 
of tours and the effects will accumulate. We're seeing some of 
the events you've already pointed out very candidly--suicide 
rates, marital discord. That's probably the bow wave of 
something worse coming behind if we can't change the policy.
    But I'll stop there and ask a specific question. Stop-loss. 
Do you anticipate that the stop-loss policy will remain in 
effect for the foreseeable future? I understand about 5,500 
soldiers were denied their voluntary request to leave the 
Service this year, 6,200 this year and 5,500 next year. Is that 
about right?
    Mr. Geren. Right now we have about 8,000 that are under 
stop-loss. Last year it was about 11,000. We anticipate by the 
end of the year it will be around 5,500-6,000. We look at the 
stop-loss as a necessary process right now to meet our 
deployment schedules. Secretary Gates thinks, and I agree with 
him, stop-loss is something that we need to work our way out 
of. I have tasked the Army to come up with a plan to work us 
out of stop-loss, to come up with alternatives, to come up with 
incentives. I have met with the Army staff multiple times over 
the 4 months that I've been in this job as Acting Secretary on 
that issue and continue to work with him. We have to look at 
creative ways to avoid using stop-loss as much as we have.
    I'd like to tell you that we would be able to have a plan 
that we would do away with it entirely in the next year or so. 
I don't think we'll get there. But we need to be on a steady 
decline in the use of stop-loss. We need to come up with 
alternatives and we're working to do that.
    Senator Reed. To what extent does the stop-loss skew your 
retention statistics? Are they totally separate?
    Mr. Geren. We look at it as separate. When we give you end 
strength numbers, it includes the stop-loss number, but it's 
not part of our grow the force strategy. It's not part of our 
calculation for growing the force. We use it to maintain unit 
cohesiveness in advance of deployment primarily and make sure 
that we have the skill levels and we have the unit cohesion 
necessary.
    Senator Reed. Mr. Secretary, when you're talking about 102 
percent retention rate, does that include those people who are 
staying because they can't leave?
    Mr. Geren. I don't believe so, but let me get back with you 
for the record on that. I don't think that we include it, but I 
am not certain. Let me be certain and get back with you.
    [The information referred to follows:]

    Army retention rates are determined by the number of soldiers who 
reenlisted divided against the available population in a given fiscal 
year. Soldiers retained in the Army under the provisions of stop-loss 
are a part of the available population as long as their adjusted 
expiration term of service date is in the fiscal year in question.

    Senator Reed. Thank you, Mr. Secretary.
    In terms of junior officer retention, which is a critical 
point, but also probably more critical to the success of any 
small unit is the NCOs. The retention rate at E-5 and E-6 and 
in particular military occupational specialties (MOSs), combat 
MOSs, are they holding up?
    Mr. Geren. Let me get back with you for the record on that. 
They're holding up well, but that's also an area in our new 
force structure that creates a much greater demand for those 
grades and it's an area where we do have a shortage long-term.
    [The information referred to follows:]

    The Army's retention rates for sergeant and staff sergeant in 
combat and combat support military occupational specialties, which are 
high-density specialties in brigade combat teams, are reflected in the 
below chart.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Reed. As you check, Mr. Secretary, one of my 
concerns is that there are military occupation specialties 
which are less stressful in some cases than being an infantry 
squad leader or an armored platoon leader, cavalry squad 
leader, et cetera. I think you have to drill down to the 
specifics of those individual young men and women who are going 
out into leadership roles into our forward units and let us 
know how that's holding up.
    Mr. Geren. Right, I certainly will.
    Senator Reed. One of the issues I think that's been 
unintentionally prompted by the surge is I am told that the 
requirements for reset have had to be deferred, the funding 
just simply to get equipment into the theater for these 
additional forces. Is that true? Has the reset money been 
diverted into the surge?
    Mr. Geren. No, it has not. We've applied about 80 percent 
of the $17 billion that you have provided us. That will provide 
the equipment sets for reset for 24 brigade combat teams. We 
are working all the depots, except there's only one depot 
that's not operating at the maximum capacity necessary, in 
order to process that equipment through the depots.
    Because of the surge, some of that equipment is staying in 
theater longer and will be coming home next year, and it will 
put more demand on the depots than we currently have right now. 
It will exceed the demand. Because it is staying in theater 
longer, we have less to reset in the depots than we would have 
otherwise.
    Senator Reed. Can you give me an idea of the ongoing tempo 
for reset funding going forward? As you indicated, we applied 
about $17 billion this year. How long and how much will we have 
to spend to reset the force?
    Mr. Geren. I need to get back with you on our estimates. We 
have it in our planning documents, but I need to get back with 
those specific numbers.
    [The information referred to follows:]

    Reset funding is not programmed across the Future Years Defense 
Plan but is based upon equipment that was actually destroyed, damaged, 
stressed, or worn out during operations and requested as part of the 
global war on terrorism appropriations. At pre-surge levels our 
estimated overall future reset requirements were $13-$14 billion a year 
(plus 2 to 3 years each year beyond the cessation of the current 
conflict). The increasing requirements for Army units in Iraq and 
Afghanistan will increase reset requirements, which we currently 
estimate to be an additional $2.5 billion to $3.5 billion a year.

    Senator Reed. There has been some concern about obviously 
the threat of improvised explosive devices (IEDs), which is the 
greatest casualty-producer in Iraq particularly and to some 
degree occurring in Afghanistan. There's been a commitment to 
the MRAP vehicle. That's something that I presume you fully 
support?
    Mr. Geren. I strongly support it, yes, I do.
    Senator Reed. In terms of the Army after Iraq, I don't 
think we can be too presumptuous, but certainly we have to 
think that vehicle would not be particularly useful for 
operations beyond Iraq, or would it?
    Mr. Geren. I believe that it would be. I think any conflict 
we find ourselves in going forward, the success that this 
insurgency has had using IEDs as a weapon against the United 
States, I would think any enemy contemplating a conflict with 
the United States would consider that as a weapon to use 
against us. So I would think it would.
    Just real quickly on the MRAP, the vehicle that we've 
chosen as our top priority for the Army has the capacity to add 
additional armor. We are working on a FRAG Kit 6 that would 
help counter the threat of the explosively formed penetrators 
and we're looking at MRAP candidates that have enough 
additional capacity on the system to be able to hang that armor 
and be able to support it. But I think that we have to look at 
them as a vehicle that will be part of the Army going forward.
    Senator Reed. Mr. Secretary, again it's been a privilege to 
work with you and I look forward to working with you in your 
new capacity.
    Mr. Geren. Thank you very much, Senator. I appreciate it 
very much.
    Chairman Levin. Thank you, Senator Reed.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for your service. I remember 
first meeting you out in Broken Bow, Nebraska, where you 
brought a congressional team out to whip the Nebraska team on 
the one-box pheasant hunt. You've been shooting straight ever 
since.
    Mr. Geren. Thank you.
    Senator Ben Nelson. I appreciate your concern about the use 
of the stop-loss program because I too think that, while it's a 
legal way of returning soldiers, it's unpopular and over time 
and other multiple deployments, lengthy deployments, 
extensions, will erode support for the military internally from 
where it's most important, for a number of the individuals in 
the NCO ranks, as well as it will cause others not to accept 
commissions and will cause us ultimately problems that will beg 
us to solve.
    What I'd like to do is ask you about holding contractors on 
the battlefield accountable. In responding to the committee's 
advance policy question on control and accountability of 
contractor personnel for their actions on the battlefield, you 
mentioned the Military Extraterritorial Jurisdiction Act (MEJA) 
and the requirement for contractors to comply with the terms 
and conditions of their contracts. But you do not mention the 
Uniform Code of Military Justice (UCMJ). A provision in the 
John Warner National Defense Authorization Act for Fiscal Year 
2007 amended the UCMJ to clarify that it applied to persons 
serving with or accompanying an armed force in the field at a 
time of declared war or contingency operation. This would of 
course include many, if not most, contractors on the 
battlefield.
    Do you believe that contractors on the battlefield should 
be subject to the UCMJ?
    Mr. Geren. Just real quickly, Senator, I'd like to speak on 
the stop-loss point. I agree with you it's something we need to 
work our way out of. At the present time, the Army does not 
have a good plan out of that and we are continuing to work it.
    As far as holding contractors accountable on the 
battlefield, we have approximately 128,000 people working in 
contract capacity in Iraq today. I have just lately started to 
examine the issue of the contracting and the issue of whether 
or not we can hold contractors--in many cases they're third 
party nationals. Out of that 128,000, only about 30,000 are 
American citizens. Of the rest, many of them are Iraqis. Many 
others are third party nationals.
    The lawyers have briefed me that with a full reading of the 
MEJA that we would be able to bring almost everybody that works 
for a contractor to justice under that act. They raise 
questions about the challenges of using the UCMJ as an 
alternative, and I'm not far along in my understanding of their 
concerns there. I know we all share a commitment for 
accountability for those contractors.
    The number of contractors, the role that contractors play 
now in support of our military, raises many questions that 
we're having to work through, and that accountability issue is 
one of them. So I really am not prepared to speak to the UCMJ 
application at this point, but I'm working on that issue and 
I'd like to provide you an answer for the record if I could.
    Senator Ben Nelson. If you would, because I think this 
question is an important one, particularly as you go back and 
look at Abu Ghraib. There were questions asked whether the 
contractors there were going to be held responsible. You get 
into all sorts of very difficult issues. But I think that the 
2007 act was designed to solve the question of whether or not 
they could be held accountable. Now, if there are legal 
questions as to why they can't be, obviously we'd be very 
interested to see what those arguments are.
    But I think the goal was clear and that was to hold them 
accountable so that we don't go through the issue of people who 
are side by side that are not held accountable under the 
typical UCMJ.
    Mr. Geren. I certainly share your commitment to holding 
them accountable and making them responsible. In the work that 
I've done with the lawyers to try to understand the issue, they 
talk about the fabric of the legal systems that overlap and 
address issues of contractor accountability, some depending 
upon whether it was an American citizen or a foreign national. 
You have the Iraqi criminal justice system. Obviously you have 
the MEJA, our Justice Department, and then this new tool of the 
UCMJ. So I need to get back with you as I understand it better.
    [The information referred to follows:]

    The Joint Service Committee (JSC) on Military Justice was 
established by the Department of Defense (DOD) to assist the President 
of the United States in fulfilling his responsibility to prescribe 
rules and regulations applicable to trials by court-martial and to 
facilitate the DOD's annual review of the Manual for Courts-Martial 
(MCM), as required by Executive Order 12473. The JSC comprises senior 
uniformed lawyers from each of the military departments and the Coast 
Guard, together with advisory members from the Office of the General 
Counsel, DOD; the Office of the Legal Counsel to the Chairman, Joint 
Chiefs of Staff; and the U.S. Court of Appeals for the Armed Forces. 
Among its other functions, the JSC proposes modifications to the MCM to 
reflect changes to the Uniform Code of Military Justice (UCMJ).
    The JSC has worked to craft policy and procedures to implement the 
recent amendment to title 10 U.S.C. 802a, which took effect on the date 
of enactment and extends UCMJ jurisdiction over persons serving with or 
accompanying an armed force in the field ``in time of declared war or a 
contingency operation.'' In this regard, the JSC has examined several 
key policy issues, to include potential limits on the worldwide 
application of this expanded jurisdiction; the appropriate level at 
which the court-martial of a person ``serving with or accompanying an 
armed force'' may be convened; and the proper procedures to resolve 
issues of concurrent jurisdiction in the Federal civilian and military 
courts, which issues may be generated by some overlap between MEJA and 
title 10 U.S.C. 802a. The JSC provided its recommendations to the 
Secretary of Defense through the General Counsel of DOD and the 
recommendations are pending final staffing within DOD.

    Senator Ben Nelson. Thank you.
    As a former governor, I am a big supporter of our National 
Guard Forces. We've used them in Nebraska in the past when I 
was Governor and I think they've been used on other occasions 
since I've left. But the goal was to in every case have 
sufficient members of the Guard left on duty or available for 
duty in emergencies in the States. Until we get that shortage 
of equipment taken care of, there is always going to be the 
question of whether or not they're going to have the right 
equipment or enough of it in the case of an emergency. So I 
hope that you'll make your staff aware of how important it is. 
I'm sure they think about it, about how important it is to get 
a reset going as quickly as we possibly can, to make certain 
that the Guard is fully capable of responding to an emergency, 
even in the case of mutual aid that's going from one to protect 
the other, but it leaves the other unprotected.
    As you know from your Texas, Oklahoma, Kansas, Nebraska 
experience, tornado activity is common and it is not uncommon 
that the storm can go through and affect several States to one 
degree or another similarly and at the same time. So I hope 
that you'll push staff to work as fast as possible with funding 
to reset the Guard as quickly as possible.
    Mr. Geren. I certainly will. Thank you.
    Senator Ben Nelson. Thank you for your service.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Nelson.
    You made reference to 128,000 people working in contract 
capacity. What percentage of those are working for contractors? 
In other words, sometimes you read a statistic that we have 
128,000 contractors in Iraq and that gives the impression that 
we have 128,000 people that have signed contracts with us.
    Mr. Geren. That's 128,000 contract employees.
    Chairman Levin. How many of those would have contracts 
signed with the American Government, rather than people working 
for those people?
    Mr. Geren. I don't know the answer to that. I'll have to 
get back with you on that.
    Chairman Levin. I think it would be useful.
    Mr. Geren. Yes, sir.
    Chairman Levin. Quite a distinction.
    Mr. Geren. Let me get back to you with certainty, but I 
believe all those are working on contracts or in support of 
American operations.
    [The information referred to follows:]

    As of April 5, 2007, Multi-National Force-Iraq census of contractor 
employees reports 128,880 contractor employees operating in Iraq. These 
128,880 employees (20,819-U.S. citizens, 108,061-non-U.S. citizens) 
perform on 1,525 prime contracts and associated subcontracts. These 
employees represent 660 different companies operating in Iraq who have 
been awarded prime contracts from the Department of Defense. The 
Department of the Army does not have a list of prime and 
subcontractors. The Office of the Under Secretary of Defense for 
Acquisition, Technology, and Logistics has been working with U.S. 
Central Command (CENTCOM) to identify all contractors working in Iraq 
and may have that information.

    Chairman Levin. They may be working on contracts, but these 
can be people who are working serving food.
    Mr. Geren. Many of them are. In fact, the logistics 
support, housekeeping, food, laundry, that's the largest 
percentage.
    Chairman Levin. Those folks haven't signed contracts with 
the Government. They're employed by people who have signed 
contracts with the Government; is that correct?
    Mr. Geren. That's right, yes, sir.
    Chairman Levin. Can you get us the number of people who 
actually have contracts with the Government, as distinguished 
from people who are working for those, to give us those two 
numbers?
    Mr. Geren. The actual number of people who have entered 
into contracts with the Government and then the number of 
employees that fall under those?
    Chairman Levin. Under those contractors, right.
    The reference has been made here to Abu Ghraib and I'd like 
to just understand what you know about the Abu Ghraib incident 
from your role as Special Assistant to the Secretary of Defense 
from September 2001 to July 2005. There's a group that's a 
working group that was called the Geren-Maples Working Group or 
something like that. What was your role as apparently the 
congressional interface on issues regarding detainee treatment 
and abuse?
    Mr. Geren. The working group that you've referred to was 
set up I believe in May after the revelations at Abu Ghraib 
came out. It started as a small, rather informal group that was 
largely working to respond to queries from the Hill and provide 
information to the Hill, as well as provide information to the 
press.
    A good bit of our early work was just working, frankly, 
with your committee and providing you the documents that you 
needed in order to conduct your oversight. As the months moved 
on and we had more and more reports, the reports made many 
recommendations on how we could do detention operations better. 
Secretary Rumsfeld charged our group, our task force that I 
chaired with General Michael Maples, and the task force grew. 
We had a couple dozen people that worked for it in some 
capacity at one time or another.
    One of our primary responsibilities was taking those--I 
think we ended up with 500 different recommendations on how we 
could do detention operations better--and parcel them out in 
the Department: Army, you do this; Joint Staff, you do this; 
Navy, you do this; this is a joint effort. So that became a 
very large part of our work, taking those recommendations from 
all the different independent commissions and turning them into 
action items.
    We also came up with some ideas of our own on how the 
Department could be better organized to respond to detention 
operations, recognizing that going forward in counterinsurgency 
warfare, detention operations would become an increasingly 
important part of the work of the United States of America in 
our role abroad.
    For example, we recommended to the Secretary and he 
accepted the recommendation to create a Deputy Secretary of 
Defense for Detainee Affairs, so we could bring all the 
different organizations in the Department that worked detainee 
affairs up through one single person. We also worked with the 
International Committee of the Red Cross to come up with a way 
to better handle their reports so they could inform the people 
in the field as well as inform Department leadership and inform 
Congress, and we worked with your committee to come up with a 
protocol in order to handle those.
    So our role was to take the lessons that we learned from 
the tragedy of Abu Ghraib and other incidents where we fell 
down and take those into the lessons learned and help build an 
organization in the Department that was better able to handle 
detention operations.
    Chairman Levin. The recent article in the New Yorker quotes 
Major General Antonio Taguba, who was the officer who 
investigated the Abu Ghraib abuses, and also is saying that he 
didn't believe that Secretary Rumsfeld was truthful with 
Congress when he said that nobody in the Pentagon was aware of 
the nature of the photographs of abuse at Abu Ghraib until 
after those pictures were made public.
    Then the article goes on to quote e-mails that were sent to 
senior Pentagon leaders, including Secretary Rumsfeld's 
military adviser, General Bantz Craddock, as early as January 
2004, and those e-mails describe the abuses which were depicted 
in the photographs in a very vivid way, that detainees were 
performing indecent acts or were forced to perform indecent 
acts with each other, guards physically assaulting detainees by 
beating and dragging them with choker chains. Those e-mails 
again began in January 2004.
    But Secretary Rumsfeld testified to this committee in May 
2004 that he was not aware of the abuses. I'm wondering whether 
or not, for instance, you were aware of the January 2004 e-
mails describing in graphic terms the abuse of detainees at Abu 
Ghraib?
    Mr. Geren. I was not. I didn't begin working on detainee 
operations at all in any capacity until May. I believe the 60 
Minutes segment was in late April and then I started working 
again initially in support of the legislative effort to respond 
to your requests. But I was not involved early on at all and, 
other than the Taguba report, which I did read, I'm not aware 
of the basis for General Taguba's additional accusations.
    Chairman Levin. You have not talked to Craddock or Taguba 
or Rumsfeld about those e-mails?
    Mr. Geren. No, sir, I have not.
    Chairman Levin. Were you occupying that position as a 
member of the working group when Secretary Rumsfeld testified 
to this committee in May 2004?
    Mr. Geren. I don't believe we had our formal working group 
set up at that point. I was already being asked to support 
Powell Moore in the legislative effort and it evolved into the 
working group. But early on it was much more informal.
    Chairman Levin. ``Early on'' being May, when you started?
    Mr. Geren. Yes, sir.
    Chairman Levin. Or was it earlier than that?
    Mr. Geren. No. It was late April when the information 
became public on 60 Minutes and I worked just in a supporting 
role in May. I'm not sure when we actually set up the task 
force, but I was certainly in a supporting role. In fact, some 
of the missteps we had in trying to get the Taguba report here 
to the committee, I worked on that, and we had a lot of little 
technical glitches on it. So one of my earliest recollections 
was trying to get the Taguba report to your committee.
    Chairman Levin. Thank you.
    Senator Thune.
    Senator Warner. Mr. Chairman, I wonder if you'd yield to me 
to do two quick questions? I had intended to ask the questions 
along the line about these allegations, and I have no way of 
verifying the allegations of General Taguba. I went into some 
detail with the nominee yesterday on this issue. I think we had 
one fundamental agreement and that is that General Taguba's 
report was well-respected here in Congress, I felt. Did you, 
Mr. Chairman?
    Chairman Levin. I thought so.
    Senator Warner. He very ably testified. You mentioned 
yesterday you felt that was the attitude certainly within the 
Department of the Army. Why don't you use your own words as you 
described it yesterday?
    Mr. Geren. I remember the Taguba report being well-received 
and I don't remember any criticism at all of the Taguba report. 
It was a very large report. It covered a wide range of issues. 
We took the Taguba report, immediately started working to try 
to address the issues that he raised in that report. I don't 
remember any criticism whatsoever of either General Taguba 
personally or his work product. Not to say I was in every 
meeting or every conversation, but I don't remember him being 
received as anything other than someone who had done an 
excellent job with a very tough assignment.
    Senator Warner. But in summary to the chairman's question, 
you can represent to the committee in no way were you ever 
consulted or made decisions with respect to his career once he 
finished the work on that report and then began to proceed to 
other assignments?
    Mr. Geren. I was not. In fact--and I learned yesterday 
after I made an inquiry about the Army's decision for General 
Taguba to retire, General Cody discussed that with General 
Taguba in January 2006. I joined the Army as Under Secretary in 
February 2006. So the decision on his retirement was made 
before I got there. It was formally approved by Secretary 
Harvey in the summer of 2006, but I had no involvement.
    In fact, until this latest publicity about General Taguba 
came out, a couple of the articles over the last several days, 
I didn't realize that General Taguba had retired.
    Senator Warner. Yesterday, Mr. Chairman, I talked with 
General Cody about it and drew on my own experience in the 
context that the elevation of a two-star officer to a three-
star rank is statistically only about 10 or 12 percent of two-
stars reach three-star rank. I'm not here pronouncing any 
judgment on General Taguba because he certainly, as I said, 
performed well here before Congress. So we're not in possession 
of the facts that gave rise to the Chief of Staff of the Army's 
decision as implemented by General Cody--usually traditionally 
the Vice Chief is the one who notifies the general officers 
with respect to their selection or nonselection for advancement 
in rank.
    In talking with General Cody, he assured me that the Army's 
about 10 or 12 percent, as was the Navy when I was Secretary of 
the Navy, and that it's a very difficult call for the Chief of 
Staff and the Vice Chief to make when the twos are up for 
consideration for the three rank.
    This article was well-written by a seasoned journalist with 
considerable experience in investigative reporting. But at this 
point in time is no implication from that article with respect 
to this nominee and I think you've assured us of that.
    My last question is that you raised the statement that I 
have made that I think the greatest asset we have today is the 
All-Volunteer Force, and that's spread through all of the 
Services. But the Army has wisely adopted, and indeed the other 
Services and the Secretaries of Defense, the total force 
concept. In other words, we look upon the Army as being one. I 
remember that emblem that the Army wore for many years.
    Is that still the case, total force concept, and the Guard 
is equally respected and treated equally with respect to the 
regulars?
    Mr. Geren. It is. We are committed to a total force, one 
Army: Active, Guard, and Reserve.
    Senator Warner. So that concept continues to this day.
    Mr. Geren. Let me just mention real quickly one thing that 
we've done in the health care area. As you might remember, when 
we learned more about what was going on at Walter Reed in our 
outpatient clinics; there we had two separate populations. We 
had medical holds, which was Active-Duty; medical holdovers, 
which was the Reserve component. We've done away with that now. 
We have one outpatient population now and they're organized in 
a brigade, and we've taken that distinction away. Just one more 
step to ensure that they are treated as one.
    Senator Warner. That's clear, but it had persisted out of 
Walter Reed for some lengthy period of time, though, until this 
most serious problem arose and came to public attention. I 
commend the Army for quickly removing that distinction. That's 
throughout our medical system now in the Army?
    Mr. Geren. Yes, sir. On June 15 it went medical system-
wide.
    Senator Warner. I thank the chair. I thank my colleagues.
    Chairman Levin. Senator Warner, thank you.
    Senator Thune.
    Senator Thune. Thank you. I am always happy to yield to the 
distinguished Senator from Virginia.
    Mr. Secretary, I thank you for being here. I thank you for 
your willingness to answer the call to public service, for your 
past service to our country, and also to your family. I know we 
have had this discussion in the past about the sacrifices that 
not only the people who are involved in public life make, but 
also the people closest to them, their families. So we 
appreciate your willingness and their willingness to be here 
and to be willing to step up to what is indeed a very difficult 
challenge. We appreciate your service.
    I understand most everything that can be said has been said 
today probably, or that can be asked has been asked. So I won't 
belabor the point. I was with a contingent of National Guard 
members from my State of South Dakota yesterday, too, and I 
understand many of those questions have been beat into the 
ground already.
    But I do want to ask a question about modernization, which 
I suspect has been touched on as well. One of the challenges 
that we're going to face is modernizing our Army to meet our 
extraordinary security challenges in this century. Over the 
years, the Future Combat System has faced many criticisms and 
continues to do so. Since it is critical that we transform and 
modernize our Army, I'd like to know how are some of the past 
and possible proposed reductions in the Future Combat System--
and I understand the House has proposed making some significant 
cutbacks in that program--how are those proposed reductions 
driving changes to some of the program milestones?
    Mr. Geren. Thank you, Senator, and I want to thank this 
committee for its strong support of Future Combat System.
    It takes decades for us to change the major weapons systems 
in the Army. The platforms that we have today are platforms 
that began in the late 1960s, 1970s, and 1980s--the Bradleys, 
the tanks, most of the helicopter fleet. For us to modernize 
and be able to bring these new systems in years from now, we 
have to begin now. We have to live with the decisions we make 
today long into the future.
    The cuts that we have seen over the last couple years have 
caused us to string out the investment in the Future Combat 
System, and that does make it more expensive. The Future Combat 
System not only is the modernization program for the future of 
the Army; it's also a very important component of our effort to 
equip our troops in the near-term as well.
    The ultimate goal, though, is for the Future Combat System 
to connect the soldier to the network, give that soldier 
situational awareness, let him be able to track blue forces, 
let him or her know where his comrades are, to use the network 
in order to increase his situational awareness of the battle 
space which he's operating in. It will radically transform the 
ability of our soldier to perform, whether it's in urban 
settings like we find ourselves today; and it will connect the 
soldier in a way that will enhance his ability and it will also 
reduce his vulnerabilities.
    It's an important part of the future of our Army and any 
time we experience cutbacks--and if we were to experience 
cutbacks as proposed by the House, their $800 million cut which 
takes away much of the network and the manned ground vehicles, 
it would be a major setback, it would delay the program, and it 
would also add significant additional costs if we had to string 
it out.
    The other concern, too, is you lose the technology base. 
The program depends on being able to keep--it's a 
technologically very challenging undertaking--the scientists, 
the computer scientists, all the people that are part of that 
team. When a cutback happens, it causes the team to break up 
and they go on. They're the tops in their field and they have 
other things they can do and other places that they go.
    So it not only challenges us in our effort to keep the 
program on track, it also threatens the intellectual capital 
that's assembled to move the program along.
    Senator Thune. I was going to ask you about the technology 
spinout because I think you alluded to that, that the cuts have 
to be affecting that as well. There's a recent GAO report that 
said that the Future Combat System has made tangible progress 
during the past year in requirements and technology; however, 
concerns continue to linger because of the need to meet 
demonstrated knowledge points. If confirmed, how are you going 
to manage the risks and the expectations of this program and 
meet the required milestones, given what we just talked about 
with some of the budgetary constraints that we're facing?
    Mr. Geren. The Future Combat System, and I wish we had 
changed the name, frankly, because the future truly is now, not 
to sound like I'm using cliches. But it's the top modernization 
priority for the Department of the Army. It will remain the top 
modernization priority for whomever sits in this chair for 
years to come.
    As Acting Secretary and, if confirmed as Secretary, and the 
same for my successor, it will be a top priority. The 
leadership of the Army will continue to work the program to 
make sure that we stay on budget and we meet the milestones. 
Key to that, though, is predictable funding. If we are not able 
to rely on predictable funding, it's going to require a lot of 
work-arounds; it's going to be a real challenge. But I can 
assure you, whoever sits in the seat of the Secretary of the 
Army is going to be working on a regular basis overseeing that 
program.
    Senator Thune. I thank you again for your leadership and 
for your willingness to serve and look forward to your 
confirmation.
    Mr. Chairman, I yield back the balance of my time.
    Chairman Levin. Thank you, Senator Thune.
    I just have an additional question or two about the article 
in the New Yorker that was about the Taguba report. In the 
article, General Taguba is quoted as saying the following: 
``The fact is that we violated the laws of land warfare at Abu 
Ghraib. We violated the tenets of the Geneva Convention. We 
violated our own principles, and we violated the core of our 
military values. I believe even today that those civilian and 
military leaders responsible should be held accountable.''
    Do you agree with that?
    Mr. Geren. Sir, when we look back at what came of the 
Taguba report, it resulted in multiple prosecutions, a number 
of people who are serving time today. I have every belief that 
the evidence that was raised in General Taguba's report was 
followed where the facts led. I know in all of my work on the 
detainee task force in support of every one of those 
investigations and those reports our instructions were follow 
the facts where they lead, leave no stone unturned, and work 
with this committee and work with Congress to get to the truth.
    I'm not aware of any allegations of misconduct that weren't 
aggressively investigated and prosecuted. I'm not.
    Chairman Levin. But in terms of his quote here, do you 
believe that we violated the laws of land warfare at Abu 
Ghraib? Do you believe we violated the tenets of the Geneva 
Convention?
    They were violated, put it that way. Do you believe that 
the laws of land warfare were violated at Abu Ghraib? Do you 
believe that the tenets of the Geneva Convention were violated? 
Do you believe our principles were violated, that the core of 
our military values were violated at Abu Ghraib? That's my 
question.
    Mr. Geren. Yes, sir, I do.
    Chairman Levin. Do you believe that civilian and military 
leaders who are responsible should be held accountable? Whether 
that's happened or not isn't the question. Should they be held 
accountable?
    Mr. Geren. Should people responsible be held accountable?
    Chairman Levin. Yes.
    Mr. Geren. Sir, absolutely, and I can assure you if I'm 
confirmed that I'm going to insist on a high standard of 
accountability.
    Chairman Levin. Now, one of the things that General Taguba 
is quoted as saying in this article is that he was to 
investigate only the military police at Abu Ghraib and not 
those above them in the chain of command. Is that your 
understanding of what his instructions were?
    Mr. Geren. I don't know what his charge was. I didn't get 
involved in this issue at all until the Taguba report was 
complete, and that was my first encounter with Taguba, was when 
it was created. One thing that I felt, and I don't think it was 
intentional, that ended up posing a challenge for the whole 
understanding of Abu Ghraib was how we investigated different 
pieces of it. We did the military police with one 
investigation, we did the intelligence officers with another 
investigation. Instead of having them proceed together on 
parallel, you ended up having them seriatim, and that posed a 
challenge for all of us in trying to understand what we needed 
to do to make detention operations better, and it delayed it. 
It rolled it out over months, close to a year. In fact, I think 
we probably rolled into the next year with the final report.
    But I'm not aware of the charge that General Ricardo 
Sanchez gave to General Taguba. If I saw that instruction, I 
don't remember seeing it. I'm sure it was in our library.
    Chairman Levin. So that when he's quoted in this New Yorker 
article as saying that he was ``legally prevented from further 
investigation into higher authority,'' you're not familiar with 
that charge or if that's accurate or not? Do you know if he was 
prevented legally from further investigation into higher 
authority?
    Mr. Geren. What his instrument of investigation was, was a 
15-6, and I've never seen it. It's possible that we had a copy 
of his 15-6 and my guess is if we did it was in our library. 
But I don't remember seeing it and I don't know what was 
General Sanchez's charge. It wouldn't surprise me, though, 
based on the way many of these other investigations, that he 
was told: You look at the military police, because perhaps at 
the beginning they thought that's what the problem was, and the 
soldiers that ended up going to jail fell under that review. As 
we learned from him, he started having additional 
investigations added to the mix, and 12 investigations later we 
finally had it covered.
    Chairman Levin. So you're just not in a position to say 
whether he was legally prevented from further investigation 
into higher authority? You're just not familiar enough with 
either the instruction to him or his guidance to know whether 
that was accurate or not?
    Mr. Geren. No, but I expect that he has a written charge 
from General Sanchez authorizing his 15-6, and that General 
Sanchez, I assume he was the approving authority for it as 
well. So I'd be glad to go back and look for those documents. 
I'm not aware of them, though.
    Chairman Levin. Perhaps you could do that for the record, 
indicate or find out, give us your assessment of that 
statement. It's a quote of his in the New Yorker. Just check 
out the record to the extent you can, instructions to him and 
the 15-6 as to whether he was ``prevented from further 
investigation into higher authority.'' Could you check that out 
for the record?
    Mr. Geren. What I believe I could do without actually 
interviewing General Taguba would be to find the charge for his 
15-6 and try to find that document and provide it to the 
committee. If there were any private conversations that he had 
with General Sanchez, I don't know how I would determine that. 
But if this would meet your request, sir, we'll work to get the 
charging document and also the approving document when General 
Sanchez accepted his 15-6.
    [The information referred to follows:]
  Appointment of Major General Taguba as Investigating Officer in the 
  800th Military Police Brigade's Detention and Internment Operations
    Senator Levin, I have enclosed a copy of the January 31, 2004, 
Coalition Forces Land Component Command Memorandum appointing MG 
Antonio Taguba as investigating officer. This packet also includes MG 
Taguba's orders from U.S. CENTCOM, dated January 24, 2004, directing 
him to conduct an investigation into the 800th MP Brigade's detention 
and internment operations; and Lieutenant General McKiernan's approval 
of the report of proceedings by the investigating officer.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Levin. That would be fine. We think we have the 
document, but why don't you check out the approving document 
because I'm not sure we have that one.
    We end with a bang. We end with two bangs. Thank you so 
much. Thank you and your family again for your service, your 
family for their patience and support. Your daughters look 
absolutely fascinated in each one of your answers throughout 
this 3-hour hearing. We thank them for looking fascinated. Your 
wife I know, as well, is very much into how well you did. We 
look forward to bringing your nomination to the floor promptly 
and having you confirmed.
    Mr. Geren. Thank you, Mr. Chairman. I appreciate it.
    Chairman Levin. Thank you. We stand adjourned.
    [Whereupon, at 11:53 a.m., the committee adjourned.]

    [Prepared questions submitted to Hon. Preston M. ``Pete'' 
Geren by Chairman Levin prior to the hearing with answers 
supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The Goldwater-Nichols Act has made a profound and positive 
change in the operation of the Department of Defense (DOD). While I 
believe that the framework established by Goldwater-Nichols has 
significantly improved interservice and joint relationships and 
clarified responsibilities, the Department, working with Congress, 
should continually assess the law in light of improving capabilities, 
evolving threats, and changing organizational dynamics.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. This milestone legislation has served our Nation well for 
more than two decades If confirmed, I would certainly work with 
Congress to determine whether the act should be revised to better 
address the requirements of combatant commanders and the needs and 
challenges confronting the military departments in today's security 
environment. I also assess whether the law might be modified to more 
effectively allocate roles and responsibilities among the Joint Staff, 
the combatant commanders, the military departments, and the Office of 
the Secretary of Defense (OSD). One particular issue that merits review 
is accountability for conduct of deployed forces.

                             QUALIFICATIONS

    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I have a varied background in public service and a wide 
range of experience that is well-suited to this position. I served four 
terms in the U.S. House of Representatives, representing the 12th 
Congressional District of Texas, and for much of that time I was a 
member of the House Armed Services Committee. In that position, I 
worked directly with other Members of Congress and DOD on issues of 
significant interest to the military departments and the American 
people. I came to DOD in 2001, where I have held several staff and 
leadership positions. Serving as Acting Secretary of the Air Force gave 
me an appreciation of the challenges, capabilities, and achievements of 
another department. That perspective has been very useful in 
discharging my duties with the Army. As the Under Secretary and Acting 
Secretary of the Army, I developed an appreciation for, and a deeper 
understanding of, the unique demands and challenges facing the premier 
land force on the globe. Should I be confirmed, I look forward to 
continuing to serve the Army and this Nation. If confirmed, I pledge my 
best effort every day to be worthy of the trust placed in me by the 
President and the Senate, and to uphold the proud tradition of selfless 
service that characterizes the United States Army.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Secretary of the Army?
    Answer. The Secretary of the Army is the head of the Department of 
the Army and is responsible for, and has authority to conduct, all 
functions of the Department prescribed by law or by the President or 
Secretary of Defense.
    Question. What recommendations, if any, do you have for changes in 
the duties and functions of the Secretary of the Army, as set forth 
respectively in section 3013 of title 10, U.S.C., or in regulations of 
DOD pertaining to functions of the Secretary of the Army?
    Answer. At this time I have no specific recommendations for change. 
However, I intend to engage in an ongoing process of consultation with 
Army leaders, others in DOD, and Congress to pursue opportunities for 
improvement. I will not hesitate to recommend changes that I believe 
are in the best interests of the Army.
    Question. Assuming you are confirmed, what additional duties, if 
any, do you expect that Secretary Gates will prescribe for you?
    Answer. As he has done with other Service Secretaries, Secretary 
Gates may prescribe additional duties that support him in carrying out 
his duties and responsibilities to ensure that DOD successfully 
accomplishes the many demanding and varied missions with which it has 
been entrusted. At this time, I am not aware of any additional duties 
Secretary Gates may be considering. However, if confirmed, I will carry 
out any additional duties to the best of my ability.
    Question. What duties and responsibilities would you plan to assign 
to the Under Secretary of the Army?
    Answer. The Under Secretary of the Army performs such duties and 
exercises such powers as the Secretary of the Army prescribes. The 
Under Secretary is the Secretary's principal civilian assistant and 
advisor on issues of critical importance to the Army. If I am 
confirmed, and a new Under Secretary of the Army is nominated and 
confirmed, I will review the current assignment of functions, 
responsibilities, and duties within the Army Secretariat and determine 
the capacities in which the Under Secretary can most appropriately 
support my efforts to ensure that the Department of the Army is 
efficiently administered in accordance with law and the policies 
promulgated by OSD.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that you 
would confront if confirmed as Secretary of the Army?
    Answer. The Army is faced with many major challenges, including 
providing proper support to soldiers and families in time of war, 
enhancing readiness, providing quality housing, modernizing our Cold 
War-era equipment, and meeting recruiting and retention goals just to 
name a few. A major challenge will be to modernize our Army to meet the 
extraordinary security challenges of the 21st century, no matter when 
and from where such challenge arises. Equally important is establishing 
strategic depth, the ability to respond to all challenges the Nation 
faces. Additionally, the Army must transform its support infrastructure 
and integrate Base Realignment and Closure decisions. Finally, our 
increased operational tempo and multiple combat tours in Iraq and 
Afghanistan have placed a heavy burden on soldiers and their families. 
We must provide a quality of life commensurate with the quality of 
their service. We must not shrink from our responsibility as a Nation 
to care for those who have become ill, injured, or wounded in the 
service of our Nation--and we must do better for those suffering from 
Post Traumatic Stress Disorder (PTSD) and Traumatic Brain Injuries 
(TBI). Much has been accomplished to ensure that we meet this solemn 
obligation, yet much remains to be done. We owe our wounded nothing 
short of the very best medical care that our Nation can provide.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. A major part of addressing these challenges will be to work 
collaboratively with members of this committee, the entire Congress, 
the President, and Secretary Gates. I am committed to maintaining the 
Army as the dominant land force in the world, and with your help, I am 
confident of success. On many of these issues we have already made 
great strides, particularly on the medical front. Where I can make 
administrative decisions, I will act. If legislation is required, I 
won't be shy about coming to you.
    I will also join with Chief of Staff Casey in pursuing several 
critical initiatives, including growing the Army and making necessary 
readiness improvements; building momentum and continuity of our 
modernization efforts; completing the transition of the Reserve 
component to an operational force; and adapting our institutional 
processes to support an expeditionary Army that is currently suffering 
from the cumulative effects of 5 years at war.
    Of special interest to me will be addressing the challenges facing 
the very essence of the Army, the center of our formation--soldiers and 
their families. The strain of multiple deployments demands that we step 
up our support to families. So I will work to further develop and 
implement the Army Medical Action Plan (AMAP) to provide better health 
care for our soldiers and their families, and continue working to 
develop better ways to deal with PTSD and TBI.

                    IRAQ AND AFGHANISTAN DEPLOYMENTS

    Question. Many soldiers are on their third and some their fourth 
major deployment to Iraq or Afghanistan. Recently, unit deployments 
have been extended to 15 months and dwell time in some cases is less 
than 12 months.
    What are the indicators of stress on the force, and what do these 
indicators tell you about that level of stress currently?
    Answer. In this period of high operational tempo, we must closely 
monitor the condition of our soldiers and their families. Army leaders, 
officers, and NCOs must pay close attention to the mental and physical 
condition of their soldiers and address issues as soon as they arise. 
These leaders are the front line in ensuring we understand the 
condition of our soldiers and respond accordingly. Other indicators lag 
the awareness of those leaders. But, there are other indicators we 
watch closely. The high reenlistment rates we have experienced and 
continue to experience over the course of this conflict indicate that 
the morale of our soldiers remains strong. Additionally, Army 
discipline and misconduct rates, including desertion rates, absence 
without leave, drug use, and courts-martial, have remained steady over 
the last few years. However, other indicators are deeply troubling and 
offer cause for concern, such as the increase in divorce and suicide 
rates.
    Question. For how long do you believe these levels of commitments 
can continue before there will be significant adverse consequences for 
the Army?
    Answer. The Army will not be able to maintain its current level of 
commitments indefinitely without significant adjustments. The stress on 
the force is a major concern to all leaders in the Army and we are 
constantly monitoring and adjusting recruiting and retention incentives 
to keep pace with operational demand and Army transformation. The Army 
has taken action to mitigate these concerns by growing the size of the 
force, better utilizing the Reserve component, rebalancing military to 
civilian conversions, and monitoring the time individual soldiers spend 
at home between deployments. We also must do more to support the 
families of soldiers who are shouldering the burden of multiple 
deployments. Family support programs must be improved.

                           ARMY BUDGET SHARE

    Question. The Army Posture Statement points out that the defense 
budget allocation by Service has changed little over time with the Air 
Force and Navy around 30 percent and the Army around 25 percent. 
Moreover, since the Army is manpower intensive, and personnel costs eat 
up a large part of its budget, only 25 percent of the Army's budget 
goes toward research, development, and acquisition, as compared to 38 
percent in the Navy and 43 percent in the Air Force. Further, the 
Army's overall share of the DOD investment dollars is only 17 percent, 
as compared to 33 percent for the Navy and 35 percent for the Air 
Force. The result is that ``the Army has been unable to invest in the 
capabilities needed to sustain a rising operational tempo and to 
prepare for emerging threats.''
    What is your understanding of the effects of this funding 
discrepancy on the Army?
    Answer. In spite of rising budgets for the Army, the Army continues 
to work to address shortfalls in equipment and infrastructure that have 
accumulated over many years. In order to properly prepare for the 
future threats the Army must work to build in our nondeployed forces 
full spectrum readiness and strategic depth. The Army must achieve 
improved levels of readiness in our nondeployed forces or accept a 
force with suboptimal capability. We also are working to make overdue 
investment in housing and facilities. We have made great strides over 
the past 3 years in fixing our equipment readiness challenges and need 
your continued support.
    Question. What specifically have you done as Under Secretary of the 
Army and what do you intend to do if confirmed as the Secretary to 
address this funding discrepancy?
    Answer. I have made matching Army resources to strategic 
requirements a central theme during my tenure as the Acting Secretary 
of the Army. Working with OSD and the Office of Management and Budget 
during the development of the President's fiscal year 2008 budget, the 
Army received increased funding levels for fiscal years 2008-2013. If I 
am confirmed as Secretary of the Army, I will continue to ensure we are 
good stewards of our Nation's resources, and continue to work closely 
with members of this committee, Congress, and the administration to 
remedy Army readiness issues that result from previous funding 
shortfalls in the investment accounts.
    Question. Have you discussed this problem with the Secretary of 
Defense or the Deputy Secretary of Defense? What is your understanding 
of what, if anything, they intend to do to address this discrepancy?
    Answer. While building the President's fiscal year 2008 budget, we 
shared the impact of these funding shortfalls with the Secretary of 
Defense and the Deputy Secretary of Defense. We effectively 
communicated and quantified challenges the Army faces in preparing for 
current conflicts and other emerging requirements. As a result of this 
collaborative effort the Army's resources were increased by more than 
$7 billion per year. Secretary of Defense Gates is working with the 
Army to meet readiness requirements and to ensure the Army has the 
resources necessary to support the National Military Strategy. 
Secretary Gates also is supporting the Army's modernization efforts.

                         POSTURE FOR THE FUTURE

    Question. Do you believe that current Army initiatives such as Grow 
the Force, Modularity, and Transformation to the Future Combat Systems 
adequately posture the Army to meet the most likely threats of the next 
two or three decades?
    Answer. If I am confirmed, I will work to ensure the Army is ready 
to meet the most likely future threats. Grow the Force, Modularity, and 
Transformation to the Future Combat Systems will help posture the Army 
to meet those threats. We cannot predict threats with any certainty so 
we must build full spectrum readiness and strategic depth to ensure we 
are prepared for whatever may lie ahead. Our goal must be to build an 
Army versatile and agile enough to be employed in the range of military 
operations, across the major operational environments, in support of 
our national security strategy. The Army initiatives are designed to 
give the Army maximum flexibility to respond to continual and 
asymmetrical threats over the next 30 years.
    Question. What other initiatives would you pursue in this regard if 
confirmed as Secretary of the Army?
    Answer. If I am confirmed, I will pursue initiatives that ensure 
the Army is postured to fight and win across the full range of military 
operations against a variety of opponents with differing capabilities 
and provide better support to our Army families. The new Chief of Staff 
of the Army, General Casey, is working with Army leadership to advance 
a list of initiatives that seek to achieve these goals. Among the top 
priorities is support for soldiers and families, including improved 
health care for soldiers and dependents. Additionally, our disability 
system, built over generations, has become a bureaucratic maze and 
needlessly complex. It is a system that frustrates, and often stymies, 
the best intentions of dedicated public servants and compromises the 
Army values we pledge to uphold. In simplest terms, a soldier who 
fights battles abroad should not have to fight bureaucracy at home. The 
Army is working with OSD to revamp this antiquated disability system.

                            LESSONS LEARNED

    Question. What are the major lessons learned from Operation 
Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF) which you 
would seek to address if confirmed as Secretary of the Army?
    Answer. Lessons learned from OIF/OEF have led the Army to improve 
its training for counterinsurgency warfare. On the homefront, the pace 
of operations has placed great stress on Army families and we are 
building programs to better support our families. We must expand 
language skills and enhance cultural awareness to be successful in the 
operations and missions our Armed Forces are engaged in today. The Army 
must continue to modernize and sustain its combat training centers, 
home station training, and institutional training, instilling and 
sustaining a warrior ethos in soldiers and leaders who are trained to 
be agile and adaptable. Detention operations have improved over the 
course of the conflict, but we must continue to look for ways to 
enhance our capabilities in this area. With growth in the Army's force 
structure and the challenges this places on training, the Army needs to 
continue to assess ways to train efficiently, using training resources 
from all Army components, as appropriate. As the Army develops its 
operational rhythm, Army Force Generation (ARFORGEN) will continue to 
play a critical role in synchronizing cyclic training, while placing 
focus on theater-specific training requirements, such as training to 
defeat improvised explosive devices (IEDs). Because of the large load 
that the Reserve component (Army National Guard and the Reserves) is 
pulling, the Army needs to assess continually its mobilization 
policies, balancing training requirements to meet the appropriate level 
of Reserve component operational readiness with the domestic mission 
and requirements of the Guard and Reserves.
    Question. More specifically, what are the lessons learned 
concerning manning, training, and equipping the Army which you intend 
to address if confirmed?
    Answer. The Army must build on its distance learning program to 
enable soldiers in the field the ability to train individually on 
skills otherwise not available when deployed. Further, the Army must 
take appropriate measures to provide adequate Training Support Systems 
(TSS) at Army installations to support full spectrum training. Units 
must have greater capabilities at home stations to train across the 
spectrum of conflict in a training environment replicating the 
contemporary operating environment. One equipping lesson learned is 
that consistent, timely, and adequate funding is required to increase 
the equipment available for operations and training. We are taking 
steps to transition the LOGCAP contract from one to eventually three 
contractors to increase capabilities and generate competition. We must 
find ways to immediately respond to the stress and demands placed on 
our military families. We need to work to be able to change quickly to 
succeed in this type of conflict, facing a nimble and adaptive enemy.

                  POST-IRAQ OFFICER RETENTION PLANNING

    Question. After the Vietnam War there was a large reduction in 
force which some believed masked a voluntary departure of some of the 
best and brightest junior officers from Active-Duty who, after serving 
in very responsible positions at a relatively young age in combat, had 
difficulty adjusting to a peacetime Army. The nature of the wars in 
Iraq and Afghanistan--small unit actions where junior leaders are not 
only military leaders, but also diplomats and city managers, and where 
they have even greater authority to act on their own initiatives--may 
produce similar behavior and consequent difficulty in retaining highly-
trained and experienced junior officers.
    Do you agree that this is a potential problem, and if so, how would 
you address it if confirmed as Secretary of the Army?
    Answer. After the Iraq War, we may face the risk of losing the 
``best and brightest,'' combat-experienced officers and NCOs from our 
Army. We cannot allow the Army to drift in a post-conflict setting. 
This will require refocusing the Army, retaining the best and brightest 
soldiers, and leveraging combat-experienced soldiers in key and 
critical assignments, such as the Training and Doctrine Command. If I 
am confirmed, one of my most important tasks will be to develop 
retention measures to keep combat-experienced soldiers in the Army. We 
also must develop programs to better support families in an 
expeditionary Army during a period of persistent conflict.

                   END STRENGTH AND RECRUITING GOALS

    Question. The Army's recruiting goal for fiscal year 2008 is 80,000 
recruits, the same as in fiscal year 2007. The Army has told the 
committee that it expects to end fiscal year 2007 with over 518,000 
soldiers after starting the calendar year with around 502,000. The Army 
then plans to grow the force in fiscal year 2008 by another 7,000 
soldiers to end the fiscal year at over 525,000 soldiers.
    How is the Army progressing in meeting its recruiting goals for 
this fiscal year? Is the Army on pace to meet its year-end goals?
    Answer. The fiscal year 2006 end strength was 505,400. I expect 
that the Army will meet and exceed its fiscal year 2007 recruiting goal 
of 80,000 soldiers. Although the Army missed the monthly recruiting 
goal in May, for the year it remains ahead of requirements to achieve 
the fiscal year 2007 recruiting goal. We have added additional 
recruiters to help us meet our targets and are maintaining vigilance to 
quickly react to downward trends and indicators.
    Question. How can the Army increase its end strength to over 
518,000 this year and over 525,000 next year without increasing its 
recruiting goal?
    Answer. Based on current analysis, an increase in recruiting goals 
is not necessary to meet our planned growth in Army end strength. In 
addition to recruiting, the Army uses retention and loss management 
tools as levers to manage end strength. Throughout fiscal year 2006 and 
the first half of fiscal year 2007, the Army has focused on retaining 
more initial term soldiers and has seen attrition drop to record lows. 
The combination of these tools has enabled the Army to grow strength 
faster.
    Question. Has the Army changed its standards to achieve its 
recruiting mission and to meet its end strength goals?
    Answer. The Army closely monitors indicators of quality in our 
recruits. Every soldier who enlists in the Army has been screened to 
ensure they have the appropriate qualifications to perform his or her 
designated Military Occupational Specialty. The Army continues to use 
the DOD quality marks as one measurement, while taking other steps to 
achieve results, such as reduction of training base attrition. The Army 
has experienced a decline in high school diploma graduates and an 
increase in Category IV recruits. These trends must be monitored 
closely, but performance in those areas remain well above historical 
standards.
    Question. What is the current end strength of the Army today?
    Answer. The end-of-month May end strength for the Active Army was 
507,459.
    Question. What do you project the Army's end strength to be at the 
end of this fiscal year?
    Answer. The Active Army end strength is projected to be 519,800 at 
the end of this fiscal year.
    Question. In the past, the Army has asserted that, given recruiting 
challenges and training infrastructure, it can only grow its end 
strength by 5,000 to 7,000 soldiers per year. Is this still an accurate 
projection, or can the Army grow the force by more than 7,000 soldiers 
per year?
    Answer. Growth of the Army beyond 7,000 per year is a factor of 
recruiting and retention. Each area has its specific challenges and 
requirements. For example, if we wanted to accelerate recruiting above 
80,000 per year there would have to be an increase in recruiting 
resources and incentives, but also, basing, training, and equipment 
issues to address. Facilities such as barracks and developing training 
areas and ranges to accommodate the increased forces will take time to 
plan and construct.

                          STOP LOSS AUTHORITY

    Question. How many soldiers do you expect the Army to retain under 
stop loss authority at the end of fiscal year 2007, in order to 
increase end strength to 518,000?
    Answer. The Army uses stop loss to grow end strength, to maintain 
unit cohesion, and to prepare and maintain units for deployment. We 
expect stop loss to account for 6,300 toward the fiscal year 2007 end 
strength of 519,800.
    Question. How many soldiers does the Army estimate it will retain 
under stop loss authority in fiscal year 2008 to achieve end strength 
of 525,000?
    Answer. The Army expects stop loss authorities to account for 5,500 
toward the fiscal year 2008 end strength of over 525,000.
    Question. What is the Army's plan for reducing stop loss as it 
increases its end strength through the out-years?
    Answer. The Army, under the direction of OSD, is working to meet 
the Secretary of Defense's intent to reduce the use of stop loss as 
reflected in the January 19, 2007, announcement concerning 
``Utilization of the Total Force.'' The Army is currently developing a 
plan for minimizing the use of stop loss. The Army has commenced a 
complete review of the Army's stop loss policy and is in the process of 
identifying ways to reduce the need for stop loss.

                      ARMY PREPOSITIONED EQUIPMENT

    Question. The Army has long followed the dictates of the concept of 
``train as you fight.'' In some cases, however, units have had to fight 
on prepositioned equipment that was less modern than that on which they 
had trained in the continental United States (CONUS).
    What is your understanding of the effect on mission capability of 
operationally having to use equipment from prepositioned stocks that is 
not as modern as that with which the unit regularly trains?
    Answer. The equipment that has been drawn from the Army 
Prepositioned Stocks (APS) met operational requirements. The 
prepositioned equipment drawn combined with the Theater Provided 
Equipment met the combat capability required for the BCTs to which it 
was issued.
    Question. What changes to policies regarding use of prepositioned 
equipment stocks would you recommend, if confirmed?
    Answer. The last 4 years demonstrated that the APS program was 
flexible, responsive, and critical to the Army's ability to deploy 
forces in support of combatant command requirements and adapt to 
changing strategic requirements. We must replenish the stocks with 
equipment that meets the needs of the modular force. I will review the 
underlying policy, but I am not aware of any changes needed at this 
time.
    Question. What is your understanding and assessment of the current 
plan for reconstituting Army prepositioned equipment upon the 
withdrawal of units from Iraq?
    Answer. APS capabilities will be reconstituted to provide the 
maximum level of strategic flexibility and operational agility. The 
Army has an APS Strategy 2013 which articulates the afloat and ashore 
equipment required to meet the future responsiveness needs of the 
combatant commanders. Once the current operational and equipping tempo 
stabilizes, the Army will develop an executable timeline within 
available resources to reset its APS sets according to the APS Strategy 
2013.

                         EQUIPMENT AVAILABILITY

    Question. In your view, is deploying additional brigades to Iraq 
likely to increase the strain on maintenance systems and further reduce 
equipment availability for training?
    Answer. The 5-BCT surge and 15-month troop extension in Iraq will 
delay some units' redeployment and postpone some equipment reset from 
fiscal year 2007 to fiscal year 2008 or fiscal year 2009.
    The Army has plans in place to ensure these delays do not impact 
training or equipping of next to deploy units. This delay in retrograde 
and reset of approximately six BCT sets of equipment will result in 
some increased stress in fiscal years 2008 and 2009. Despite the 
projected increase in reset activities in these years, adequate, 
continued, and timely funding for reset will prevent a degradation of 
Army maintenance systems.
    Question. Do you believe that the Army has enough equipment to 
fully support the predeployment training and operations for the next 
rotation to OIF/OEF?
    Answer. The Army has enough equipment to ensure forces are 
adequately prepared for and can successfully conduct operations in OIF/
OEF. No soldier will go into combat without the proper training and 
equipment. There are, however, some equipment shortages in CONUS that 
require sharing equipment among predeployed units to ensure they are 
fully trained before deploying. Equipment sharing is generally managed 
at the brigade or division-level by transferring equipment among units 
to support specific training events. The Army works diligently to 
schedule forces for deployment as early as possible and to project the 
mission they must perform when deployed. As part of each 
synchronization cycle, a Department-level Force Validation Committee 
works to ensure that deploying forces are provided all the personnel 
and equipment required for their mission. Additionally, a Training 
Support and Resources Conference meets to ensure deploying forces have 
all the training support tools they need to train for their mission and 
are scheduled for a mission rehearsal exercise.
    Question. What do you see as the critical equipment shortfalls for 
training and operations?
    Answer. All soldiers receive the required training and equipment 
before going into combat. Active, Guard, and Reserve must be certified 
as ready before they are put in harms way. Achieving the necessary unit 
readiness involves consolidating training sets at our installations to 
compensate for equipment shortfalls among nondeployed units. The most 
common Active and Reserve component high-demand predeployment training 
equipment shortfalls occur with force protection-related equipment, 
where equipping solutions are developed to meet specific theater 
requirements. Most of the production of these items goes straight into 
theater to meet the force protection demand. These items include up-
armored light, medium, and heavy tactical trucks, special route 
clearance vehicles (to include the RG-31, Buffalo, Husky, and Cougar), 
and counter remote-controlled IED warfare devices. We retain a limited 
number of these systems for home station training and at our combat 
training centers so soldiers will gain experience with these systems 
before they deploy. Additionally, a large number of our soldiers 
already have one or more rotations in Iraq and Afghanistan and have 
direct experience with these systems.
    Other items of equipment with limited availability for home station 
training include kits designed to increase the survivability of 
standard Army equipment, including the Bradley and Tank Urban 
Survivability Kits, and up-armored HMMWV fragmentation kits. These kits 
are provided in theater. Finally, there are some additional training 
equipment gaps in specific areas which are driven by the Army's desire 
to get the most modern and capable systems immediately into the hands 
of our soldiers in combat operations. These items include the most 
recent version of the Army Battle Command System, the Command Post of 
the Future, some advanced intelligence systems, and biometric systems. 
The Army is working to get appropriate levels of systems to support 
training the force into the training base and at unit home stations, as 
well as in our Combat Training Centers.
    Significant quantities of Army equipment remain in Iraq and 
Afghanistan to minimize the time lost, and associated costs, in 
transporting equipment to and from these missions. The result is that 
units at home station have less than full sets of authorized equipment. 
Although rotating equipment between training units allows us to achieve 
the training requirements before deployment, these units are limited in 
their ability to support other contingencies around the world should 
the need arise.
    Question. What steps would you take, if confirmed, to address these 
shortfalls and ensure that units have what they need to train and 
operate?
    Answer. The Army has taken measures to overcome the impact on 
training of equipment shortfalls by creating training sets of equipment 
and rotating units through training. Congress has allocated $17.1 
billion in fiscal year 2007 supplemental dollars for the Army to reset 
the force. Over 70 percent of these supplemental funds have been 
obligated as of mid-April 2007 and will allow the Army to double the 
workload at its depots. The number of tanks, Bradleys, and other 
tracked vehicles being overhauled is being quadrupled. While the use of 
training sets is not the optimal solution, units have and will continue 
to meet all required training and readiness standards prior to 
commitment into combat. If I am confirmed, I would continue these 
efforts. I would also work with the administration and Congress to 
ensure that the Army develops budget requirements to better equip the 
forces at home station, between deployments, and to build strategic 
depth to support other contingencies that may be directed by the 
national leadership.

                         EQUIPMENT REPAIR/RESET

    Question. Congress provided the Army with $17.1 billion in fiscal 
year 2007 to help with the reset of nondeployed forces and accelerate 
the repair and replacement of equipment.
    What impact do you expect the increased funding to have on the 
readiness of our ground forces, and how soon do you expect to see this 
impact?
    Answer. The funding has helped prevent erosion of unit readiness 
and restores equipment to a desired level of combat capability 
necessary for a unit's future mission. The $17.1 billion provides the 
resources to replace, repair, and recapitalize equipment for 24 brigade 
combat teams and support units. Contracts to replace battle losses are 
being put in place during fiscal year 2007, but most of the equipment 
will not be delivered to the Army until fiscal year 2008. The reset 
funding will meet the requirements to properly equip our deploying 
forces, but will not address all equipment shortfalls or equipment 
still committed overseas in support of OIF and OEF.
    Question. Is it your understanding that our repair depots are 
operating at full capacity to meet rebuild and repair requirements for 
reset?
    Answer. Our depots currently are not operating at full capacity. 
They are operating at the capacity necessary to meet current 
requirements and available funding. Each depot's production capacity is 
being optimized by each equipment type/commodity. In fiscal year 2007 
we have scheduled 130,000 items to be reset. Because of timely, 
predictable funding, we were able to expand output. We have scheduled 
an additional 25,000 items this year.
    The $17.1 billion received in fiscal year 2007 works off all fiscal 
year 2006 and fiscal year 2007 depot backlog and we do not need them to 
do more in fiscal year 2007. The depots are repairing enough equipment 
to meet the requirements for next-to-deploy forces. The fiscal year 
2007 supplemental funding also allows reset of 24 BCTs within 18-24 
months.
    Should Army requirements change, depots could do more and increase 
their capacity with predictable funding, available spare parts, 
increased work force, and more retrograded equipment.
    Question. What additional steps, if any, do you believe could be 
taken to increase the Army's capacity to fix its equipment and make it 
available for operations and training?
    Answer. Consistent, timely, and adequate funding is required to 
increase the equipment available for operations and training. 
Congressional support has given the Army the necessary funding to 
eliminate the current depot backlog. For instance, the HMMWV backlog is 
projected to be eliminated by March 2008. The capacity to fix equipment 
depends on funding, past procurement, depot production, and retrograde 
from theater. Due to the large amount of equipment in theater, funding 
for reset must continue 2-3 years beyond the end of this conflict
    Question. What impact do you believe the President's decision to 
send an additional five brigades to Iraq is likely to have on the pool 
of equipment available for nondeployed units to train with at home?
    Answer. All units will be fully trained and equipped before going 
into combat. The Army will continue to be able to provide sufficient 
equipment for nondeployed soldiers to properly train before deployment. 
However, we will continue to rotate training sets among units as we did 
before the surge. For example, the Army is moving Up-armored High 
Mobility Multipurpose Wheeled Vehicles (UAHs) between units to ensure 
predeployment training requirements are met at home station, while 
units in theater are provided the quantities of UAHs required to 
perform their combat mission. The Army is also addressing this 
equipping challenge by using reset to repair, replace, and recapitalize 
equipment, filling training requirements from new production, and 
requesting additional funding to purchase needed equipment.
    Question. What impact is it likely to have on the ability of Army 
National Guard units to respond to homeland security and disaster 
relief missions?
    Answer. The plus-up has had no effect on Army National Guard units' 
ability to respond to and perform homeland security and disaster relief 
missions. Plus-up units are all Active component and their equipment 
came from new production and other Active component units, not from 
existing Army National Guard pools of equipment.

                MINE RESISTANT AMBUSH PROTECTED VEHICLES

    Question. In your role as the Acting Secretary, you have been 
involved in the Army's evolving requirement for the Mine Resistant 
Ambush Protected (MRAP) vehicles. A recent memo from you to Secretary 
Gates indicated that the current Army requirement for MRAP vehicles is 
2,500, but that the requirement could be increased to 17,700. The U.S. 
Marine Corps has decided to replace all of its Up-armored HMMWVs (UAHs) 
with MRAP vehicles.
    Is the current Army requirement for MRAP vehicles still 2,500 and, 
if so, is that number adequate to meet the Army's needs?
    Answer. Buying the MRAPs we need to better protect soldiers and 
getting them to theatre as soon as possible is our top near-term 
acquisition priority. The Army requirement for MRAP vehicles is much 
greater than 2,500 and Army leadership is working to determine the 
proper number. The Army has sent a high level team to theater to better 
understand the theater request. The Army has committed the supplemental 
funding provided by Congress to acquire 900 MRAP vehicles and will 
field the first vehicles this fall. We are working with the Navy and 
Marine Corps to achieve the highest production rates possible, as soon 
as possible, for MRAPs.

                  U.S. ARMY FORCE STRUCTURE IN EUROPE

    Question. A major drawdown of U.S. military personnel in Europe is 
underway. The heart of this proposal is a reduction of approximately 
47,000 Army personnel and the relocation of 3 combat brigades from 
Europe to the United States. After that decision had already been made, 
the fiscal year 2008 budget proposes to add 65,000 soldiers to Army 
Active-Duty end strength over the next 5 years. As part of this 
increase, the Army proposes to create six new light infantry combat 
brigades.
    If confirmed as the Secretary of the Army, what would be your role 
and responsibility in the final determination of the permanent station 
location for each of the six additional brigades?
    Answer. If confirmed as the Secretary of the Army, I would ensure 
the Army considers operational, fiscal, and environmental implications 
of force growth and ongoing realignments prior to determining 
stationing locations.
    Question. In your current role as the Acting Secretary, what 
criteria has the Army developed to assess locations for the placement 
of the six brigades?
    Answer. The Army will use the best military value criteria, 
training capacity, power projection, logistics infrastructure and 
capacity, soldier well-being, cost and growth capacity, and 
environmental considerations. The criteria are derived from the 2005 
base realignment and closure analysis. We will ensure that our 
planning, analysis, and criteria meet all of the requirements included 
in the National Environmental Policy Act.
    Question. Do you believe the consideration of locations for the 
final determination of the permanent station location for each of the 
six additional Active brigades should include Army Reserve and Guard 
installations in the United States?
    Answer. The Army is in the initial stages of analyzing installation 
capacity and capability for supporting six brigade combat teams. Army 
Reserve and Guard installations in the United States are being 
considered.
    Question. Given the role our forces in Europe have played in 
operations in both Afghanistan and Iraq, do you believe it would be in 
our strategic interest to base one or more of these six additional 
brigades in Europe?
    Answer. Our current strategy which is the Global Defense Posture 
Realignment strategy calls for a shift to a more CONUS-based, joint and 
expeditionary Army and the Army plans to base the six new brigades in 
CONUS.
    Question. What is your current role as Acting Secretary of the Army 
in the decision of how many, if any, of these additional 65,000 Army 
personnel should be based in Europe, when do you expect this basing 
decision to be made, and what would your role be in making this 
decision, if confirmed?
    Answer. In my current role, I provide recommendations on global 
basing strategy and ensure the Army's recommended stationing decisions 
are consistent with strategic guidance and meet the requirements of the 
combatant commander. If confirmed, I would expect to continue providing 
my recommendations to OSD in these critical areas.
    Question. In your opinion, should DOD determine the location of the 
six brigades before making any irrevocable decisions to return property 
in Europe?
    Answer. The Army is proceeding with analysis of the CONUS basing 
options for the six brigades consistent with the strategic guidance 
from the Secretary of Defense. Currently, there are no plans to utilize 
European options.
    Question. The training ranges at the National Training Center in 
California and the Joint Readiness Training Center in Louisiana are 
already fully utilized. If the ongoing drawdown from four heavy 
brigades to one Stryker brigade in Europe is fully implemented, it 
seems likely that the Joint Multinational Readiness Center in Germany 
will not be fully utilized.
    Do you believe we should take the availability of this training 
range, and the cost avoidance of not building new ranges if we have an 
underutilized range available, into consideration in deciding whether 
or how soon to draw down our ground forces in Europe, and where to base 
the proposed six new brigade combat teams?
    Answer. One of the Secretary of the Army's responsibilities is to 
ensure the responsible stewardship of all Army resources whether the 
resource is funding, equipment, or facilities. If confirmed as 
Secretary of the Army, any basing decision would include a complete 
analysis of resource requirements and availability.

                      ARMY SCIENCE AND TECHNOLOGY

    Question. The Army invests in science and technology (S&T) programs 
to develop advanced capabilities to support current operations and 
future Army systems. The Army's budget request has included a declining 
level of investment in S&T programs over each of the last 4 fiscal 
years.
    What do you see as the role that Army S&T programs will play in 
continuing to develop capabilities for current and future Army systems?
    Answer. The Army's S&T program is the investment the Army makes in 
our future soldiers. This program has to be as adaptable and responsive 
as our soldiers in the field. The Army's S&T strategy should be to 
pursue technologies that will enable the future force while 
simultaneously seizing opportunities to enhance the current force.
    Question. Do you believe that the Army should increase its level of 
investment in S&T programs?
    Answer. The Army's planned S&T investments seek to mature and 
demonstrate the key technologies needed to give our soldiers the best 
possible equipment now and in the future. Given the current environment 
and priorities, I believe our level of investment is appropriate.
    Question. What metrics would you use, if confirmed, to judge the 
value of Army S&T programs?
    Answer. The real value of S&T programs is measured by the increased 
capability of the force achieved when new technologies are inserted 
into systems and equipment and that equipment is provided to fully-
trained soldiers. While technology is still in S&T, we use the standard 
DOD established Technology Readiness Levels to report when technologies 
are judged to be mature enough for successful transition to an 
acquisition program of record.
    Question. What role should Army laboratories play in supporting 
current operations and in developing new capabilities to support Army 
missions?
    Answer. The S&T community can support current operations in three 
ways. First, soldiers are benefiting today from technologies that 
emerged from past investments. Using our Rapid Equipping initiative, we 
are seeking to field technologies as soon as possible to help in the 
warfight. Second, the Army should exploit transition opportunities by 
accelerating mature technologies from ongoing S&T efforts. Third, we 
should also seek to leverage the expertise of our scientists and 
engineers to develop solutions to unforeseen problems encountered 
during current operations. To enhance the current force, Army S&T 
should be providing limited quantities of advanced technology 
prototypes to our soldiers deployed to the fight.
    Question. If confirmed, how would you ensure that weapon systems 
and other technologies that are fielded by the Army are adequately 
operationally tested?
    Answer. Operational testing is of critical importance and one of 
the cornerstones of the Army's acquisition program. It ensures that the 
systems and technologies work not only from a technical aspect, but 
also from the perspective of how our soldiers will use these systems 
around the world in actual operations. The Army has a systematic 
approach to test new systems under the conditions that replicate actual 
combat as much as possible. The Army partners the Army Test and 
Evaluation Command with the Program Executive Offices, the Training and 
Doctrine Command, and the soldiers from various Army Commands to plan 
and execute very thorough operational tests. I fully understand the 
importance to the Army of operational testing and the impact it has on 
ensuring the right systems get to our soldiers. As Secretary, I will 
insist we conduct thorough operational tests so we understand how the 
system performs in the hands of our soldiers prior to fielding.
    Question. Are you satisfied with the acquisition community's 
ability to address the operational needs of deployed forces?
    Answer. The Army constantly seeks more agility in addressing the 
anticipated and unanticipated operational needs of deployed forces. OEF 
and OIF have transformed the way we approach this topic. The 
acquisition community must always balance the need to fill requirements 
with the need to comply with laws and regulations. The biggest 
challenges for the acquisition community are retaining trained people, 
managing the interaction with requirements and testing communities, and 
managing complex programs that require high levels of oversight.
    Question. If confirmed, what recommendations would you have to 
speed the ability for the Army to provide operational forces with the 
specific systems and other capabilities that they request?
    Answer. If confirmed, I will work to continue funding the Rapid 
Equipping Force (REF) to rapidly increase mission capability while 
reducing risk to soldiers and others. The REF equips operational 
commanders with off-the-shelf solutions or near-term developmental 
items that can be researched, developed, and acquired quickly. The Army 
must also continue to develop, test, and evaluate key technologies and 
systems under operational conditions and rapidly field those 
capabilities that will enable our forces to rapidly confront an 
adaptive enemy. Additionally, a reexamination of the Federal 
Acquisition Regulation and Defense Acquisition Regulation and our 
acquisition processes should be undertaken to reflect the asymmetric, 
catastrophic, and irregular situations we are facing in the current 
environment.

  ARMY LABORATORIES AND RESEARCH, DEVELOPMENT, AND ENGINEERING CENTERS

    Question. If confirmed, how will you ensure that the Army 
laboratories and research and development centers have the highest 
quality workforce, laboratory infrastructure, resources, and 
management, so that they can continue to support deployed warfighters 
and develop next generation capabilities?
    Answer. If confirmed, I would encourage the recruitment and 
retention of the highest quality laboratory workforce. The Army has 
already taken significant advantage of the authorities provided by 
Congress for recruiting bonuses, laboratory pay banding, pay-for-
performance, incentive awards, and employee advanced education and 
development programs. Our vital laboratory infrastructure is 
fundamental to exploit the knowledge of our people and to attract and 
retain the most talented scientists and engineers to work for the Army. 
Despite tremendous pressures on resources to fund current operations 
and Army modernization we have struggled to sustain S&T funding at 
roughly $1.7 billion for the past several budgets. The Army promotes 
efficient use of these resources and effective laboratory management 
through multiple processes: peer groups, laboratory internal management 
reviews, Army headquarters and cross-Service technology reviews, as 
well as input from subject-matter experts from industry, academia, and 
other government agencies.

                    ARMY TEST AND EVALUATION EFFORTS

    Question. If confirmed, how will you ensure that the Army's test 
and evaluation infrastructure is robust enough to ensure that new 
systems and technologies are tested to verify their combat 
effectiveness and suitability?
    Answer. The infrastructure today is fully meeting the current 
requirements of the global war on terror. Fiscal year 2011 will be a 
challenge to ensure long-term test and evaluation infrastructure. My 
intent is to address the test and evaluation infrastructure in the next 
Program Objective Memorandum (POM) cycle.

                FOREIGN LANGUAGE TRANSFORMATION ROADMAP

    Question. A Foreign Language Transformation Roadmap announced by 
the Department on March 30, 2005, directed a series of actions aimed at 
transforming the Department's foreign language capabilities, to include 
revision of policy and doctrine, building a capabilities based 
requirements process, and enhancing foreign language capability for 
both military and civilian personnel.
    What is your understanding of the steps being taken within the Army 
to achieve the goals of the Defense Language Transformation roadmap?
    Answer. The Army has made great progress in the area of Language 
Transformation, and we are committed to the four goals of the roadmap:

          1. Creating foundational language and cultural expertise in 
        the officer, civilian, and enlisted ranks for both Active and 
        Reserve components.
          2. Creating the capacity to surge language and cultural 
        resources beyond these foundational and in-house capabilities.
          3. Establishing a cadre of language specialists possessing a 
        level 3/3/3 ability (listening/reading/speaking).
          4. Establishing a process to track the accession, separation, 
        and promotion rates of language professionals and Foreign Area 
        Officers (FAOs).

    The Army is addressing language training across a broad spectrum of 
skill levels. Today, language training involves more than just making 
soldiers into linguists; it involves giving soldiers of all specialties 
basic communication skills that are needed in the contemporary 
operating environment. The Army is not making every soldier a language 
expert, but giving them tools to succeed in the environment in which 
they will operate. For our language experts, the Army has set a high 
language proficiency goal of 3-listening, 3-reading, and 3-speaking. 
The Army increased Foreign Language Proficiency Pay Policy to encourage 
soldiers to improve their existing proficiency and acquire new language 
capabilities in critical languages. We are also using online tools such 
as Rosetta Stone as well as native-speaking role players in training 
scenarios to replicate the contemporary operating environment. 
Additionally, we have embedded the tasks of the Language Transformation 
Roadmap in a new chapter of Army Regulation 350-1, Army Training and 
Leader Development, and language training is a part of our 
predeployment ARFORGEN model. One of our key initiatives was the 
creation of Military Operations Specialty 09L which recruits native 
foreign language speakers to be interpreters/translators. The Army is 
the only Service with a program such as 09L. We have trained and sent 
forward 377 trained interpreters in support of the global war on 
terrorism, as well as expanding the program to all components of the 
Army. These language experts as well as others such as our FAOs are 
tracked by Army career field managers.
    Question. What is your assessment of an appropriate timeframe 
within which results can be realized in this critical area?
    Answer. This is a capability that we are building, and the fruits 
of our work through the Language Transformation Roadmap and other 
initiatives will take time to produce results. In the mean time, 
contract linguists and 09L interpreters and translators are vital to 
our capacity to surge language resources.

                  ARMY MANAGEMENT AND PLANNING PROCESS

    Question. Over the past several years, the Army's planning, 
programming, and budgeting process has not kept pace with rapidly 
changing requirements. While this is more understandable for events 
like the Presidential decision to surge additional forces into Iraq, it 
is less understandable with respect to long-term program decisions such 
as the modular conversion of Army brigades or the more recent proposal 
to increase the size of the Army. It has become routine for the Army to 
submit ``placeholders'' instead of actual program plans in budget 
requests, and to purchase temporary facilities followed almost 
immediately by additional funding requests to buy permanent facilities 
to replace the temporary ones.
    What is your assessment of the Army's management and planning 
process?
    Answer. The Army planning, programming, and budgeting process ties 
together strategic guidance with the capabilities required to carry out 
the National Military Strategy while working within the constraints of 
fiscal guidance. The Army manages mission requirements for resources 
and manpower over a 5- to 6-year period. The Army seeks to balance the 
need for both the current force and future force to ensure our soldiers 
and their families have the necessary capabilities, facilities, and 
programs to meet their needs. However, no matter how well the staff 
plans for the future, there will always be unforeseen changes to 
requirements (especially in today's environment) and decisions made 
beyond the control of the Army. New plans require time to establish, 
and sometimes temporary solutions must be implemented. These temporary 
solutions and other lessons learned often lead to unexpected capability 
gains to Army formations engaged in combat. As the Army attempts to 
provide these new capabilities and lessons learned to our soldier 
engaged in combat, timelines for decisions on emerging capabilities do 
not always match timelines associated with the planning, programming, 
and budget process. Placeholders should be used sparingly, but they 
allow the Army to make the best decision on prudent use of available 
resources in this fluid environment.
    Question. In your view, does the Army have enough people with the 
right skills to manage the changes being attempted, or is the Army 
undertaking more organizational change than it is capable of 
accomplishing during a time of war?
    Answer. The Army is transforming its processes designed to identify 
and eliminate wasteful practices while gaining greater efficiencies. 
The Army is attempting to garner savings to self-finance many of its 
initiatives, while sustaining our capabilities to meet the increasing 
demands of our wartime missions. I believe the Army has the right group 
of people with the right skill sets to see the Army through these 
challenging times. The Army must, however, continue to provide the 
necessary training as new technologies and processes are made available 
to improve productivity and remain a relevant and ready force.
    Question. If confirmed, what steps would you plan to take to 
improve the Army's management and planning processes, in particular for 
major force structure and program changes?
    Answer. If confirmed, I will examine how we can make the process 
more adaptive to the changing environment, building upon the positive 
working relationships the Army has built with DOD leaders. I believe 
improvements can be instituted to make the process more efficient. If 
confirmed, I will work closely with the Deputy for Business 
Transformation to engage the Army staff in a concerted effort to 
identify and implement meaningful change and process improvements. In 
this effort, however, I would maintain a central focus on the readiness 
of the Army to fight the global war on terror.

                           ARMY INSTALLATIONS

    Question. The Department of the Army recently was criticized for 
substandard facility conditions at the Walter Reed Army Medical Center, 
which in part led to leadership changes in the chain of command for the 
center.
    In your current role as the Acting Secretary, have you seen a 
change in how the leaders in the Department of the Army address the 
conditions and quality of facilities and installations throughout the 
Army?
    Answer. First, I'd like to address the steps we have taken with the 
Army Medical Action Plan (AMAP) to improve medical facilities. The 
Installation Management Command (IMCOM) has conducted a 100 percent 
review of Warrior in Transition barracks and identified corrective 
measures required to bring them up to standard. Additionally, the IMCOM 
has identified requirements for other buildings on installations that 
Warriors in Transition would use. Army-wide, quality of life remains a 
top Army priority to ensure soldiers and families have safe and 
adequate facilities to live, work, and train. The Army has made 
substantial progress in the last 4 years increasing Base Operations 
Support 41 percent and Facility Sustainment/Restoration and 
Modernization 15 percent. We have doubled our effort in Restoration and 
Modernization funding to $200 million per year. Care for our families 
is foremost in the Army's stationing and mobilization of soldiers. The 
environment in which our soldiers and families live, work, and train 
plays a key role in recruiting and retaining the All-Volunteer Force. 
For example, 19,000 family homes have been built or modernized under 
the Residential Communities Initiative. This is quality housing that 
our families proudly call home. Although, we are still not doing as 
much as we would like in this time of war and constrained resources, we 
continue to make consistent and steady progress toward improving the 
installation services necessary to sustain the All-Volunteer Force.
    Question. In your opinion, does the Department of the Army have 
additional problems with facility conditions across the Army aside from 
the ones identified at Walter Reed? If so, how serious are they?
    Answer. We have identified shortcoming in other facilities across 
the Army and are working to address them. The Army is continuously 
challenged to balance facility sustainment, restoration, and 
modernization projects to meet mission and life, health, and safety 
requirements. Facilities projects compete for funding and must be 
prioritized for execution over a number of years. If confirmed, I will 
make it a top priority to ensure that our efforts to improve facilities 
for our wounded warriors, soldiers, and families are continued.
    Question. If confirmed, would you implement any additional programs 
or guidance to ensure our soldiers work and live in adequate 
facilities?
    Answer. If confirmed, I would implement initiatives from three 
working groups which address issues in this area. One initiative, 
enhancing the quality of support to soldiers, civilians, and families, 
will develop a plan for improvements to installation services. Another 
initiative, complete Reserve component transition, will complete the 
conversion to modular units and adjust and resource post-deployment 
policies and family support programs to ensure care of soldiers and 
their families that are dispersed throughout the United States. A third 
initiative, Adapt Army Institutions to Support an Expeditionary Army at 
War, will provide initiatives to support soldiers, civilians, families, 
and wounded warriors with reliable and standard levels of quality of 
life. Also, it will offer improved installation management systems to 
better align with ARFORGEN phases and mitigate the effects of repeated 
deployments. This would include improving services, facilities, and the 
military construction process.

                       CONTRACT SUPPORT FUNCTIONS

    Question. DOD has engaged in the privatization of many of its 
support functions. As a result, the Department now relies heavily on 
contractors to perform acquisition, budget, and financial management 
functions that are critical to the execution of the Department's 
mission. Senior DOD officials have informed the committee both formally 
and informally that, because of reductions in the acquisition work 
force, the Department now lacks the capability to effectively oversee 
the work performed by its support contractors.
    Are you concerned about the extent to which the Army has become 
reliant upon contractors to perform critical functions?
    Answer. The Army is committing additional personnel and resources 
to provide the required level of contract administration on large 
contracts, particularly for the Army's contracting officers who support 
operations in Iraq and Afghanistan. Another area of concern is a 
shortage of Contracting Officer Representatives (CORs) within units to 
provide surveillance on service contracts in support of contingency 
operations.
    Question. What steps, if any, do you believe the Army should take 
to ensure that it has the resources it needs to provide effective 
oversight for its support contractors?
    Answer. Working within existing manpower constraints, the Army 
needs to ensure that its limited contract oversight resources are 
organized and employed in the most efficient manner. In addition, it 
needs to continue to place appropriate management emphasis on COR 
training.
    Question. The privatization of functions previously performed by 
DOD employees now extends to many functions performed on the 
battlefield. As a result, many functions that were performed by DOD 
personnel as recently as the Gulf War have been performed by contractor 
personnel in the current conflict in Iraq.
    Do you believe that the DOD has reached, or exceeded, an 
appropriate balance in providing for the performance of functions by 
contractors on the battlefield?
    Answer. The downsizing of the Army in the 1990s has increased the 
need for contractors to provide non-inherently governmental functions. 
The use of contractors is a force multiplier enabling the U.S. Army to 
keep soldiers engaged in core U.S. Army missions. Currently, there are 
an estimated 129,000 contractors in Iraq. They continue to perform a 
vital role performing services such as mail delivery, laundry and food 
services, water and ground transportation of goods, road and rail 
maintenance, construction, base operations, petroleum supply, and 
maintenance and technical support for high-technology systems. The Army 
balances the need to use contractors to provide critically needed 
services while using soldiers and DOD civilians to perform inherently 
governmental functions.
    Question. Where do you believe that the DOD should draw the line 
between functions on the battlefield that can and should be performed 
by contractors and functions that should only be performed by DOD 
personnel?
    Answer. DOD must maintain vigilance to ensure that only non-
inherently governmental functions are contracted out.
    Question. Do you believe that contractors on the battlefield are 
subject to appropriate levels of control and accountability for their 
actions, or would additional regulation be appropriate?
    Answer. With changing conditions on the ground, we must be vigilant 
to ensure that we maintain proper oversight over our contract 
workforce. I believe that existing controls are appropriate but must be 
re-evaluated regularly. In October 2005, the DOD issued DOD Instruction 
3020.41 titled ``Contractor Personnel Authorized to Accompany the U.S. 
Armed Forces,'' to address contingency contractor personnel. Section 
6.1.3 states that ``contingency contractor personnel fulfilling 
contracts with the U.S. Armed Forces may be subject to prosecution 
under Federal law, including but not limited to, the Military 
Extraterritorial Jurisdiction Act (MEJA), 18 U.S.C. 3261, which extends 
U.S. Federal criminal jurisdiction to certain DOD contingency 
contractor personnel, for certain offenses committed outside U.S. 
territory.'' The Department of Justice has responsibility for 
prosecuting violations of Federal law. Besides being subject to Federal 
law, contractors must abide by the terms and conditions in their 
contracts. All DOD contracts being performed in a combatant commander's 
area of operations require that contractor employees adhere to the 
policies and directives of the combatant commander.

                            MISSILE DEFENSE

    Question. The Army has fielded the Patriot system and is upgrading 
all Patriot units to the most modern and capable PAC-3 configuration. 
The Theater High Altitude Area Defense (THAAD) system is being 
developed as a near-term system for defending against short-, medium-, 
and intermediate-range ballistic missiles.
    What do you believe is the Army's proper role in fielding, 
operating, sustaining, and funding missile defenses, and how does that 
role relate to the role of the Missile Defense Agency (MDA)?
    Answer. As a member of the joint team, the Army is responsible to 
field and operate land-based missile defenses as capabilities are made 
available by the MDA. Upon transition and transfer of land-based 
missile defense elements to the Army, the Army will assume 
responsibility for the operations and sustainment of these 
capabilities. MDA is responsible for research and development of 
missile defense capabilities and the Army is responsible for their 
operations and support of the land-based systems. The Army's close 
partnership with MDA throughout the developmental process has enabled 
us to succeed in putting capabilities in the field and enabled us to 
achieve the interoperability of these capabilities with the other 
Services and our allies.

                             STRATEGIC RISK

    Question. Do you believe that the extended pace and scope of 
operations in Iraq and Afghanistan create higher levels of strategic 
risk for the United States based on the availability of trained and 
ready forces for other contingencies?
    Answer. Strategic risk for the Nation must be considered from a 
joint perspective. As for the Army's role in support of the National 
Military Strategy, the Army's increased operational tempo and multiple 
combat tours in Iraq and Afghanistan limit Army resources available for 
other contingencies.
    Question. How would you characterize the increase in strategic risk 
in terms of the Army's ability to mobilize, deploy, and employ a force 
for a new contingency? In your view, is this level of risk acceptable?
    Answer. Strategic risk must be considered from a joint perspective. 
The Army can still meet strategic requirements to mobilize, deploy, and 
employ its forces in support of national military strategic objectives; 
however, if the OEF and OIF demand does not decrease, the Army may 
require a longer timeline to provide resources to support a new 
contingency. The level of risk that the force faces today is increased, 
but the force remains capable of responding to an unforeseen surge 
requirement. We will continue to work with Congress and OSD to reduce 
risk.
    Question. What impact, if any, do you expect the decision to 
increase Army forces committed to Iraq to have on our ability to meet 
our security obligations in other parts of the world?
    Answer. Our Nation's strategies to respond to threats around the 
world involve all components of our Nation's defense, including all 
four Services. High utilization of the resources of one Service may 
require an adjustment in the role of the other Services. Army forces 
committed to Iraq do limit the Army's ability to meet other security 
obligations around the world. The decision to lengthen combat tours 
would be lengthened to 15 months reflects that increased demand; 
however, our Nation's military is capable of meeting and defeating 
threats to the Nation in support of current national and defense 
strategies.
    Question. How and over what period of time, in your view, will 
increases to Army end strength reduce or mitigate this risk?
    Answer. The Army's approved growth in end-strength will increase 
the Army's ability to respond to contingencies. We must grow the Army, 
and we are working to do that, adding 65,000 to the Active-Duty Force, 
8,000 to the Guard, and 1,000 to the Reserve over the next 5 years. But 
we must remain flexible as circumstances change to meet future demands. 
The ``Grow the Army Plan'' is based on lessons learned from the past 5 
years and increases the strategic depth for the Army to meet global 
requirements of the long war. The growth will not be limited to BCTs. 
The growth will also enhance other combat capabilities (Patriot Air 
Defense), combat support (Military Intelligence, Engineer, and Military 
Police) and combat service support (Transportation, Quartermaster, 
Medical, Ordnance and Maintenance). The plan recognizes increased 
demands on the Institutional Army to recruit, train, and sustain the 
operational force. Adjustments must reflect growth in the operational 
force while we continue to seek efficiencies in the Institutional Army 
to reduce its percentage of the Army's end strength.
    Question. What additional actions, in your view, are necessary to 
reduce or mitigate this strategic risk?
    Answer. Adequate and predictable funding of modernization and 
transformation efforts are critical to mitigating this strategic risk. 
Policy and budgets must match the current strategy and demand. We also 
must build the capacity of our international partners and allies as we 
cannot face these challenges alone. We must invest in partner nations 
who know the culture, language, and geography of our enemies. The 
President's budget includes vital funds for that effort. Additionally, 
rebalancing the forces in the Reserve component and fully transitioning 
the Reserve component from a Strategic Reserve to an operational force 
will further mitigate risk.

                    WALTER REED ARMY MEDICAL CENTER

    Question. You testified before the committee at the Army posture 
hearing on March 15, 2007, and again at a joint hearing of the Senate 
Armed Services Committee and the Senate Veterans Affairs Committee on 
April 15, 2007, regarding revelations of poor conditions for outpatient 
soldiers at the Walter Reed Army Medical Center. At those hearings, you 
discussed the many ways the Army planned to address the issues at 
Walter Reed, including personnel changes, the creation of new offices 
to address the specific needs of wounded soldiers, and changes in the 
resources and facilities for outpatient care.
    What is your assessment of the overall changes that have been made 
thus far at Walter Reed, and what more needs to be done?
    Answer. I am encouraged by the accomplishments made by MG Gale 
Pollock, Acting Surgeon General, MG Eric Schoomaker, Commander, Walter 
Reed Army Medical Center (WRAMC), and his Deputy, BG Michael Tucker, 
over the past 90 days. They have shown a commitment to correcting 
deficiencies in the management of outpatient care, to include providing 
for the needs of the families of our brave soldiers. As a result of 
these efforts, along with others planned for the coming months, I am 
confident that our warriors in transition and their families will to 
receive the best medical and restorative care and support services 
possible.
    Question. What specific changes have been made to address the 
issues of care and treatment for outpatients and their families?
    Answer. The most important steps taken to date are the 
establishment at WRAMC of the Warrior Transition Brigade (WTB), along 
with the introduction of the concept of a ``triad'' of a primary care 
manager (usually a physician), a nurse case manager, and a squad 
leader. The WTB provides the leadership structure necessary to allow 
our warriors to focus on healing. Soldiers previously living in 
Building 18 now reside in high quality housing: Abrams Hall and the 
Mologne House, located on the WRAMC Campus, both provide telephone, 
cable television, and internet service in each warrior in transition 
room. As a result of the findings of the 2006 Army's Physical 
Disability Evaluation Transformation Initiative, WRAMC is beta testing 
a streamlined approach to Medical Evaluation Board processing, reducing 
the number of required documents from 38 to 18. Another accomplishment 
is the establishment of the Soldier Family Assistance Center (SFAC). At 
WRAMC, the SFAC is centrally located within the hospital and is 
designed to support the needs of warrior family members. The SFAC is a 
concept that has worked with great success at Brooke Army Medical 
Center in San Antonio, TX, and I believe will be of great benefit at 
WRAMC and to all Army treatment facilities. These and numerous other 
improvements that Major General Schoomaker and his staff have 
implemented at WRAMC are part of a comprehensive AMAP that was first 
implemented in April 2007. I am confident that the Army is not only 
correcting the deficiencies at WRAMC, but is developing a comprehensive 
program to ensure that warriors in transition and their families 
receive the best quality care and support possible at all Army 
treatment facilities.
    Question. If confirmed, what measures would you propose to minimize 
or mitigate the detrimental effects, if any, from the closure of Walter 
Reed as required by the 2005 Defense Base Closure and Realignment 
Round?
    Answer. The Army, working with DOD and Congress, is seeking to 
accelerate the construction of the new center at Bethesda. The Army is 
committed that WRAMC will remain fully operational until the new center 
is fully operational. The ability to manage patient care functions 
between the medical centers appropriately and seamlessly, is 
facilitated by the ongoing functional integration of clinical services 
at WRAMC and National Naval Medical Center (NNMC). The Army expects 
that all the major clinical services at WRAMC and NNMC will be 
functionally integrated before the end of the current calendar year. 
Integrated clinical service provides active patient management spanning 
inpatient and outpatient at both institutions. When the transition from 
WRAMC to the new Walter Reed National Military Medical Center is 
completed, all of the lessons learned and the functional integration 
process will be fully implemented. If confirmed, I will work to ensure 
that we maintain WRAMC at full operational capacity until the NNMC is 
prepared to provide medical care to our soldiers.

               MEDICAL PERSONNEL RECRUITING AND RETENTION

    Question. The Army is facing significant shortages in critically 
needed medical personnel in both Active and Reserve components. The 
committee is concerned that growing medical support requirements, 
caused by the stand-up of Brigade Combat Teams, potential growth of the 
Army, surge requirements in theater, and other factors will compound 
the already serious challenges faced in recruitment and retention of 
medical, dental, nurse, and behavioral health personnel. Moreover, the 
committee understands that the Army continues to direct conversion of 
military medical billets to civilian or contractor billets.
    If confirmed, would you undertake a comprehensive review of the 
medical support requirements for the Army, incorporating all new 
requirements for 2008 and beyond?
    Answer. If I am confirmed, I will undertake a comprehensive review 
of the medical support requirements for the Army, to include a review 
of authorities necessary to increase recruitment and retention of 
medical, dental, nurse, and behavioral health personnel.
    Question. What policy and/or legislative initiatives do you think 
are necessary in order to ensure that the Army can continue to fulfill 
medical support requirements as its mission and end strength grow?
    Answer. To continue to fulfill medical support requirements as its 
mission and end strength grow, the Army needs to explore the use of 
special pays and retention bonuses for health care professionals and 
authority to appoint officers in the Army Medical Department with a 
reduced military service obligation. We also need to explore ways to 
improve TRICARE services for soldiers and families.

                   NATIONAL SECURITY PERSONNEL SYSTEM

    Question. Congress enacted broad changes in the DOD civilian 
personnel system in 2004 to provide the Department with more flexible 
tools for the management of its civilian workforce in support of our 
national security. However, DOD employee unions have strongly resisted 
the implementation of the proposed new system.
    What is your view of the success of the National Security Personnel 
System (NSPS) implementation within the Army so far, and if confirmed, 
what would be your expectation for continued implementation of NSPS 
within the Army?
    Answer. The implementation of NSPS thus far is successful. More 
than 41,000 Army civilians have now been converted to NSPS. 
Implementation efforts have been well planned and managed and have 
incorporated a robust program of communication and training for Army 
managers and employees. The Army's first pay-for-performance rating 
cycle was also successful with employees receiving performance-based 
pay in January 2007. The NSPS performance management process resulted 
in greater communication between supervisors and employees to develop 
meaningful job objectives aligned with organizational goals and 
resulting performance ratings reflected the workforce's contribution 
toward achieving such goals. NSPS has allowed for increased flexibility 
in rewarding exceptional performance. Lessons learned from our 
implementation experiences are being used to adjust policy and 
training. An additional 29,000 employees are scheduled for conversion 
to NSPS during the November 2007 to February 2008 timeframe.
    Question. What steps would you take, if confirmed, to ensure 
broader employee acceptance of NSPS?
    Answer. Management support and accountability are essential to 
employee acceptance. If confirmed, I will assure that managers are held 
accountable for communicating performance expectations, and that they 
provide fair and equitable ratings. Building consensus through 
communication and transparency is paramount to successful 
implementation. Therefore, the Army will maximize our unprecedented 
training effort to ensure that all participants understand the new 
system and their roles in making it successful.
    Question. Based on your experience, what are the critical factors 
for successful implementation of a total transformation of work force 
policies and rules, including performance-based pay?
    Answer. Among the factors I consider critical are leadership 
commitment and support, and an educated and knowledgeable workforce. 
NSPS is a key pillar in Army's transformation plan and is integral to 
developing the right mix of people and skills across the Total Force. I 
will ensure all leaders are committed to NSPS and remain engaged in the 
successful implementation. Further, I will endorse a pay-for-
performance system that is consistent, fair, equitable, and recognizes 
our employees based on their contribution to mission accomplishment.
    Question. If confirmed, how would you monitor the acceptance of the 
NSPS and what role would you expect to play in managing the NSPS 
implementation in the Army?
    Answer. I strongly support the need for transformation in civilian 
management. If confirmed, I will continue to evaluate actively the 
effectiveness and impact of the implementation of NSPS and will set 
that tone for the leadership in the Army as we continue to implement 
NSPS. The Army has established an NSPS Program Management Office that 
recommends Army NSPS policy, provides guidance, monitors 
implementation, and will keep me informed of progress and any issues 
that require my attention. These policy decisions are made with the 
guidance of an NSPS General Officer Steering Committee. In addition to 
the inclusion of NSPS-specific questions in Army's annual workforce 
survey, onsite evaluations to assess program effectiveness are being 
performed which will provide additional implementation feedback and 
lessons learned. Finally, Army, along with the other Services, works 
closely with the Program Executive Office, NSPS, on evaluation methods 
and tools that will be useful for monitoring NSPS and its acceptance. 
The Army will be able to consider DOD-wide survey and implementation 
results, and compare them to what we find through Army.

       MANAGEMENT AND DEVELOPMENT OF THE SENIOR EXECUTIVE SERVICE

    Question. The transformation of the Armed Forces has brought with 
it an increasing realization of the importance of efficient and forward 
thinking management of senior executives.
    What is your vision for the management and development of the Army 
senior executive workforce, especially in the critically important 
areas of acquisition, financial management, and the scientific and 
technical fields?
    Answer. The Department of the Army has taken a very deliberate and 
direct approach to Senior Executive Service (SES) management within the 
Army. If confirmed, I intend to continue this initiative. The Army 
looks to its SES Corps as a replacement for military leaders in 
critically important areas, such as acquisition, financial management, 
science, engineering, and human resource management fields. As the Army 
has sent its flag officers into joint billets to support the war, it 
has replaced them with SES members. Army is reallocating positions to 
ensure senior executives are aligned with evolving business strategy. 
My vision for the management and development of senior executives is a 
senior civilian workforce that possesses a broad background of 
experiences to prepare them to move between positions in order to meet 
the continually changing mission needs of the Army. Those experiences 
will have been gained in the Army and in other military departments and 
agencies. There will be a systematic and progressive assignment pattern 
for executives that will lead them to positions of greater 
responsibility. I am committed to providing for the professional 
development and management of our civilian executives in ways 
consistent with what the Army has done for its General Office Corps for 
many years. As the Army moves forward with its transformation, if 
confirmed, I will be committed to reinforcing and institutionalizing 
the value that each senior executive brings to the leadership team and 
to promoting and sustaining high morale and esprit de corps.

                  RESERVE DEPLOYMENT AND MOBILIZATION

    Question. In recent years, Reserve Force management policies and 
systems have been characterized as ``inefficient and rigid'' and 
readiness levels have been adversely affected by equipment stay-behind, 
cross-leveling, and reset policies.
    What are your views about the optimal role for the Reserve 
component forces in meeting combat missions?
    Answer. I support the Army National Guard (ARNG) and U.S. Army 
Reserve (USAR) transitioning from a Strategic Reserve to an Operational 
Reserve that will provide the rotational depth needed to meet our 
global commitments and homeland defense and homeland security 
requirements. Our ``Grow the Army Plan'' is based on lessons learned 
and a thorough analysis of combatant commander requirements. As we 
transform and rebalance our Reserve components they will enhance the 
Army's strategic depth. The Army proposes to grow the Reserve component 
by 9,000 by fiscal year 2012. As we grow the force, the ARNG will 
continue to transform to Brigade Combat Teams and rebalance its force 
structure to provide additional Combat Support and Combat Service 
Support capabilities. The USAR will continue to rebalance its 
institutional force and to increase Combat Support and Combat Service 
Support operational force capacity.
    Question. What is your opinion about the sufficiency of current 
Reserve Force management policies?
    Answer. The Army's goal for mobilization of Reserve component units 
will remain a 1-year mobilized to 5-years demobilized ratio. However, 
due to operational demand, some units may be remobilized sooner. In 
order to meet joint force requirements, the Army is adapting and 
implementing the ARFORGEN process. The goal of the ARFORGEN process is 
provide us a flow of ready forces to meet operational requirements and 
will provide predictability for our soldiers, families, and employers. 
ARFORGEN, when fully implemented together with our Reserve component 
utilization policy and our rebalancing initiatives should provide us 
with the flexibility and capabilities we need for our Operational 
Reserve.
    Question. Do you support assigning any support missions exclusively 
to the Reserve?
    Answer. I support Army efforts to balance our capabilities within 
and across the Active component, National Guard, and Army Reserve to 
develop a total force that provides strategic depth and full-spectrum 
capabilities. The combined effects of growing the force, rebalancing, 
and transforming to a modular force will posture the Army to meet the 
needs of the Nation by increasing Combat, Combat Support, and Combat 
Service Support capabilities.

                        ARMY FAMILY ACTION PLAN

    Question. The Army Family Action Plan has been successful in 
identifying and promoting quality-of-life issues for Army families.
    What do you consider to be the most important family readiness 
issues in the Army, and, if confirmed, what role would you play to 
ensure that family readiness needs are addressed and adequately 
resourced?
    Answer. If confirmed, meeting the needs of our soldiers and their 
families will be my highest priority. The Army Family Action Plan 
(AFAP) will play an important role in meeting this priority. The AFAP 
is a dynamic program which enables the military community to share and 
raise issues which are most pressing to Army soldiers, civilians, and 
family members. This process further allows senior leadership to 
address and/or resolve issues brought forward or identified by these 
members of the Army community. AFAP is recognized and supported by 
commanders and is the force behind legislative, regulatory, and policy 
changes as well as improvements to programs and services across the 
Services. Current funding and staffing shortfalls challenge the ability 
to provide sufficient support to command, soldiers, and family members. 
Army Community Service (ACS) programs and services are instrumental in 
alleviating family member stress by building strong resilient families 
and increasing soldier and family readiness. Compassion fatigue and 
burnout are beginning to impact staff, Family Readiness Group (FRG) 
leaders, and leader spouses as they provide needed programs and 
services to family members. To address this concern, the Family and 
Morale, Welfare, and Recreation Command is developing and training 
Mobile Assistance Teams to relocate to installations to augment and 
provide respite. Additionally, to meet surge capabilities and address 
reintegration and reunion issues, additional Military Family Life 
Consultants are needed. These professionals provide consistent support 
and education to soldiers and families on dealing with the effects of 
deployments by developing positive coping mechanisms.
    Question. How would you address these family readiness needs in 
light of global rebasing, BRAC, extended deployment lengths, and the 
planned growth of the Army?
    Answer. Army Community Service has worked extensively with 
garrisons to develop individual plans to meet staffing, funding, and 
programming needs. The Army updates these plans quarterly to ensure 
centers are continually addressing staffing and resource requirements 
and are changing missions and strategies to meet mission and deployment 
surge capabilities. If confirmed, I would monitor these plans to ensure 
that family needs are addressed as the Army grows and undertakes global 
restationing, BRAC, and extended deployments.
    Question. If confirmed, how would you ensure support of Reserve 
component families related to mobilization, deployment, and family 
readiness?
    Answer. Supporting families of our geographically dispersed 
soldiers and family members poses special challenges but will be a high 
priority for me if I am confirmed. The Army has developed an Integrated 
Multi-component Family Support Network (IMFSN) to assist us in meeting 
this challenge. If confirmed, I would support the efforts of IMFSN and 
other programs to ensure that family support systems and services are 
accessible, consistent, and predictable for Guard and Reserve soldiers, 
and family members during all phases of deployment. We do not have all 
the answers but we must engage with Reserve component soldiers and 
families to develop programs that meet their needs. The welfare of the 
Army family, Active and Reserve components, is critical to the health 
of the U.S. Army.

                    MENTAL HEALTH ASSESSMENT TEAM IV

    Question. The Army's mental health assessment studies in the Iraqi 
theater have been valuable in identifying the extent of mental health 
conditions and resource and training challenges being experienced in 
OIF.
    Based on the findings of MHAT IV that soldiers experience increase 
stress due to multiple and lengthened deployments, what actions would 
you take, if confirmed, to ensure that appropriate numbers of mental 
health resources are available to soldiers in theater, as well as upon 
their return?
    Answer. The Army is committed to providing our soldiers the best 
mental health care possible. Indeed, we are now initiating an effort to 
recruit an additional 200 mental health professionals, to be based in 
CONUS and in theater. The Army plans other major changes as part of our 
comprehensive AMAP. Next month, the Army will roll out an extensive 
educational program on PTSD and TBI for all its soldiers and leaders. 
This program consists of a standardized presentation commanders will 
use to inform and educate both soldiers and leaders. The teaching 
materials and visual support products are in the final stages of 
development and are undergoing review by military and civilian health 
professionals. The Army also is developing proposals for establishing 
TBI and PTSD Centers of Excellence to provide nationwide education and 
training to Army leaders, clinicians, soldiers, and their families. 
Additionally, under current practices mental health assessments are 
conducted on all soldiers prior to deploying, immediately upon 
redeployment, and 3 to 6 months following redeployment.
    Question. What do you think have been the most valuable findings of 
the Army's mental health assessment teams, and what are the lessons 
which can be applied to future deployments?
    Answer. The MHATs have many valuable findings, including: 1) the 
impact of deployment lengths and multiple deployments on soldiers' 
mental health; 2) the level of combat continues to be the main 
determinant of a soldier's mental-health status; 3) good NCO leadership 
is the key to sustaining a soldier's mental health and well-being; 4) 
the suicide prevention program needs to be modified for the combat 
environment; and 5) there continues to be a perceived stigma for those 
that seek mental health care. The importance of leadership in the 
mitigation of mental health difficulties is one of many lessons that 
can be applied to future deployments. If I am confirmed, I will also 
reinforce the need to provide comprehensive and easily accessible 
behavioral health care, both in theater and at home.

                 INDIVIDUAL READY RESERVE RECALL POLICY

    Question. A July 2006 report by the Center for Strategic and 
International Studies recommended that the Army revitalize its 
Individual Ready Reserve (IRR) program by culling existing IRR 
databases and ensuring that the Army has valid contact information on 
IRR members who may be recalled to serve.
    What has the Army done to clarify the mobilization policy that 
applies to both officer and enlisted members of the IRR?
    Answer. DOD IRR policy mandates the separation within 2 years of 
IRR officers who have fulfilled their Military Service Obligation 
unless they elect to remain in the IRR. To date, over 10,000 IRR 
officers have been notified that they have to make this election. 
Approximately 75 percent have been transferred to the inactive status 
list or separated. The Army is developing a policy applicable to the 
enlisted IRR population that will also transfer nonparticipants to the 
inactive status list until separation. The Army has clarified current 
mobilization policy in the Personnel Policy Guidance which is made 
available on the Web and made specifically available to the IRR 
soldiers via the IRR soldier portal, a Web site maintained exclusively 
for IRR soldiers and their families.
    Question. What has the Army done to update its IRR mobilization 
database?
    Answer. The Army has several initiatives to improve the IRR 
database. Two of the initiatives seek to improve IRR data 
reconciliation and control of the IRR population. These initiatives 
address methods to reset the force by conducting a systematic screening 
of all data records for nonmobilization assets, to include soldiers 
passed over for promotion, those with security violations, physical 
disqualifications, documented hardship, and adverse characterizations 
of service. Following such a screening, the Army would determine the 
appropriate disposition of individuals and process for final resolution 
those soldiers who no longer have further potential for useful military 
service. When appropriate, these soldiers are being separated. 
Additionally, the Human Resources Command has processed over 20,000 
existing bad addresses through a new contract with a credit bureau 
agency reducing the number of incorrect addresses from 35 percent to 10 
percent on the database. Through these combined efforts, the IRR 
population has been reduced by approximately 25 percent to 
approximately 78,000.
    Question. What is your assessment of the value of the IRR to the 
All-Volunteer Total Force, and what is your opinion about the role the 
IRR should play in the future?
    Answer. The IRR has served honorably and has been a critical 
element to fill shortfalls in the both the Active and Reserve 
components. As of June 2007, the Army has mobilized 10,339 IRR soldiers 
to augment the global war on terror. The IRR will continue to serve a 
critical role in the future. In accordance with the IRR Transformation 
Plan, the Army is taking measures to change the ``cultural'' attitude 
about the IRR from a strategic to an operational force. Those IRR 
soldiers meeting operational readiness will be referred to as 
Individual Warriors with the ability to earn a Reserve retirement 
through various opportunities targeted specifically at them for their 
active role in participating in the program.

                           OFFICER SHORTAGES

    Question. A report issued by the Congressional Research Service 
(CRS) in July 2006 found that the Army projects an officer shortage of 
nearly 3,000 in fiscal year 2007, with the most acute shortfalls in the 
grades of captain and major with 11 to 17 years of service. Unless 
corrective action is taken, CRS found that shortages will persist 
through 2013 unless accessions are increased and retention improves.
    What is your understanding of the reasons for the current 
shortfall, and what steps is the Army taking to meet this mid-career 
officer shortfall?
    Answer. The current Army need to grow the officer corps is 
primarily due to increased requirements for Regular Army Competitive 
Category captains and majors. These will increase from 23,500 in 2005 
to nearly 30,000 by 2010. Retention rates are slightly below historical 
averages but account for a small percentage of the shortfall. Steps to 
address this shortfall are answered in the next answer.
    Question. If confirmed, what actions would you take to ensure 
adequate numbers of highly-qualified captains and majors are serving on 
Active-Duty over the next 10 years?
    Answer. If confirmed, I will continue the Army's strategy to meet 
these added requirements by increasing lieutenant accessions and 
raising the selection rates for captains and majors. The Army has also 
called to Active-Duty Reserve component officers and accepted increased 
numbers of interservice transfers of officers with the Blue to Green 
program, generating 1,000 additional officers. The second part of the 
Army's strategy is a proposal to retain officers who otherwise would 
leave Active Duty. The retention tools include a captain's retention 
menu of incentives including graduate school education, preferences for 
basing, and a $20,000 Captain's Critical Skills Retention Bonus at a 
greater rate. The growth of Army requirements necessitates retaining 
mid-grade officers in critical skills. While unprecedented for the 
Army, bonuses to retain mid-grade officers are being employed very 
successfully by the Navy. If confirmed, it will be one of my most 
important tasks to fill our increasing demand for captains and majors 
by keeping our current force of combat-experienced junior officers in 
the Army.

         NATIONAL GUARD ORGANIZATION, EQUIPMENT, AND READINESS

    Question. Legislative proposals introduced in 2006 and 2007, 
recommendations by the Commission on the National Guard and Reserves 
submitted on March, 1, 2007, and responses by the Department in 
response to these calls for change are all currently under 
consideration.
    How do you assess the changes in the roles and mission of the 
National Guard and the Chief of the National Guard Bureau?
    Answer. The past 4\1/2\ years of war and emergencies at home have 
demonstrated the degree to which the Nation relies on the National 
Guard. As we have increasingly utilized the National Guard at home and 
overseas, it has become clear that the National Guard must be 
organized, trained, and equipped to serve as an integral part of our 
operational force, not a ``Strategic Reserve.'' The Army, the Secretary 
of Defense, and the Reserve component leaders are working together to 
provide greater predictability and support for our Reserve component 
soldiers, their families, and employers. In support of these missions 
and the Defense Secretary's new policy, the Chief of the National Guard 
Bureau is working with the Governors, Secretary of Defense, the 
Chairman of the Joint Chiefs of Staff, and the Secretaries of the Army 
and Air Force, as well as other Federal agencies when National Guard 
Forces are supporting those agencies. We rely on the Chief of the 
National Guard Bureau to act as our key link to and advisor on matters 
pertaining to the National Guard. It is a testament to the inherent 
flexibility of the current organization of the National Guard Bureau 
that not one mission has been unexecuted in this environment of high-
demand, dual-purpose requirements, and I would expect that 
extraordinary performance to continue.
    Question. Do you think that the current Army processes for 
planning, programming, and budgeting sufficiently address the 
requirements of the National Guard? What is the appropriate role for 
the Chief of the National Guard Bureau in this regard?
    It has been my experience as the Under Secretary that the current 
Army planning, programming, and budgeting process has been effective in 
examining, assessing, prioritizing, and allocating resources to the 
Total Army--the Active component and the Reserve component. The Army is 
currently executing and programming unprecedented resource levels to 
the Reserve component. The Director of the Army National Guard and 
Chief, National Guard Bureau are fully represented in Army planning and 
programming deliberations. Their respective staffs have been integrated 
directly into the Department of the Army headquarters staff so that we 
fully understand Reserve component requirements and so that there is 
full transparency resulting in an improved total force. As a result, 
the Chief, National Guard Bureau and Director of the Army National 
Guard have maintained a ``One Army'' perspective and spirit. If I am 
confirmed, I will ensure that the Active and Reserve component will 
continue to work in concert to provide the land component capabilities 
our Nation needs.
    Question. If confirmed, how would you ensure that the resourcing 
needs of the National Guard are fully considered and resourced through 
the Army budget?
    Answer. If confirmed, I will work to ensure that leaders from the 
National Guard are included fully in budget planning, negotiations, and 
execution. As the Acting Secretary of the Army, I work closely with 
National Guard leaders and will continue to do so. Further, as the 
Acting Secretary of the Army, I have been engaged with the leaders of 
the Guard and Reserve, the Secretary of Defense, and the other military 
departments in an effort to implement or incorporate several of the 
goals and improvements that are contained in proposed legislation or 
have been recommended by the Commission. One of those improvements is 
to amend the Charter to specify that the Chief, National Guard Bureau 
will also serve as an advisor to the Secretary of Defense and the 
Chairman of the Joint Chiefs of Staff on matters involving planning, 
operation, and integration of non-Federalized National Guard Forces, 
and other matters as the Secretary of Defense determines appropriate. 
If confirmed, I will work in full partnership within DOD to assess the 
way ahead for the National Guard.
    Question. What is your view of the appropriate role of the National 
Guard Bureau vis-a-vis the Army, Air Force, and Joint Chiefs of Staff?
    Answer. As the Acting Secretary of the Army, I have been engaged 
with the Secretary of Defense, National Guard leaders, and the other 
military departments in an effort to implement several of the goals and 
improvements that are contained in proposed legislation or have been 
recommended by the Commission. As directed by the Secretary of Defense, 
the Department of Defense and the Army are in the process of 
implementing the proposals attached as Exhibit A to these questions.

                                 SPACE

    Question. The Army has recently restructured its program executive 
office for air and missile defense to include Army space efforts, and 
issued a new Army space policy.
    Are you satisfied that current DOD management structures adequately 
support Army equities in space?
    Answer. I believe that there are opportunities for improvement. The 
Joint Capabilities Integration and Development System helps to ensure 
all Service equities are addressed but is too slow and cumbersome when 
applied to unique space systems. The establishment of an Executive 
Agent for Space is a positive development to bring together these 
inherently joint and interagency capabilities but the current processes 
are immature. These processes will continue to evolve and will further 
enhance the Army's equities in space.
    Question. Are you satisfied with the current level of effort in the 
Army related to space programs? Do you believe these efforts have the 
right focus?
    Answer. As the importance of space programs increases across DOD, 
we need to continually keep pace within the Army to ensure that we 
fully leverage these capabilities. Some of our capabilities are one of 
a kind, and we are working to ensure we can maintain the capabilities 
needed to support our forces. The Army's Senior Space Council, 
comprised of two- and three-star generals with vested interests in 
space, monitor Army efforts related to space programs and are chartered 
to ensure Army space needs are addressed. In addition, the Army is 
developing a cadre of space professionals by leveraging joint education 
resources.
    Question. The Army currently defines its space career field as a 
subset of the information technology career field. Do you believe the 
information technology career field structure is adequate to support 
Army space interests?
    Answer. Although space officers are managed in the Information 
Operations technology career field, they are individually managed by a 
dedicated space assignment officer. This structure ensures the space 
officers receive the necessary guidance and developmental assignments.
    Question. Do you believe that the space career fields of the Army, 
Navy, and Air Force should be integrated?
    Answer. While we continue to strive to achieve greater jointness 
and integration in space operations, I do not believe that the Services 
space career fields should be integrated. Addressing the Army only, I 
believe that we need a core of space professionals that deeply 
understand Army needs, doctrine, and operations.
    Question. Does the Army plan to assign personnel to the new 
Operational Responsive Space Office (ORSO)?
    Answer. Yes, the extent and at what rank will be decided as the 
office design is finalized. The Army considers the ORSO a key emerging 
space office and is actively participating in the development and 
expects to play an integral part in the long-term operation.

                      DETAINEE TREATMENT STANDARDS

    Question. Do you agree with the policy set forth in the July 7, 
2006, memorandum issued by Deputy Secretary of Defense England stating 
that all relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. I fully support the policy set forth in the Deputy 
Secretary of Defense England's OSD July 7, 2006, memorandum.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the DOD 
Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. Do you believe it is consistent with effective military 
operations for U.S. forces to comply fully with the requirements of 
Common Article 3 of the Geneva Conventions?
    Answer. Compliance with the humane treatment standards specified in 
Common Article 3 of the Geneva Conventions is fully consistent with 
effective U.S. military operations, and with Army values.
    Question. If confirmed, how would you ensure that U.S. forces in 
Iraq and Afghanistan comply with the standards in the Army Field 
Manual, the DOD Directive, and applicable requirements of U.S. and 
international law regarding detention and interrogation operations?
    Answer. The Army, as the primary force provider to CENTCOM, has 
developed a robust training program to ensure that all U.S. forces 
involved in detainee and interrogation operations are aware of their 
obligations under U.S. and international law, as well as the 
implementing DOD policies. All personnel receive the statutorily 
mandated annual law of war training from legal professionals. This 
training includes instruction on the humane treatment standards 
specified in Common Article 3. The Army has also developed detailed 
training programs for all personnel, military and civilian, deploying 
to perform detainee and interrogation operations. In addition, regular 
semiannual assessments of detainee operations in Iraq and Afghanistan 
are conducted to ensure that operations are compliant with policy and 
doctrine. Additionally, the Army is developing an enhanced 
predeployment training program for officers slated for detention center 
operations.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Secretary of the Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                           PROMOTIONAL VIDEO

    1. Senator Levin. Secretary Geren, in 2004, you participated in a 
promotional video for the Christian Embassy (CE) that featured senior 
military and civilian defense officials and was filmed inside the 
Pentagon. What was your understanding as to the audience for whom this 
video was intended?
    Mr. Geren. The CE is one of the many religious groups of various 
faiths that provide programs and services to the civilian and military 
personnel in the Pentagon. During my tenure in Congress and my first 2 
years in the Pentagon, I participated in the CE programs. The programs 
are provided free of charge to participants. I was asked by a member of 
the CE staff to record a statement to the supporters who sponsor the CE 
programs speaking to the value of the program and thanking them for 
their support. I understood the audience to be the people who made the 
various programs possible. I was surprised to learn it was put on the 
internet and had distribution broader than the people who supported the 
CE programs. It was intended as a message of thanks to the people who 
made the work of the CE possible. When I learned it had been posted on 
a Web site (2 years after it was recorded) I requested that it be 
removed and it was.

    2. Senator Levin. Secretary Geren, do you believe that it was 
appropriate for Department of Defense (DOD) officials to permit the 
filming of this video inside the Pentagon? If not, do you believe that 
it was appropriate for you to participate in the video?
    Mr. Geren. I understood my participation to serve to thank the 
people who made the CE programs in the Pentagon possible. As the 
programs are publicly advertised and held in the Pentagon, the same as 
programs for other faiths, it did not occur to me that an expression of 
gratitude to the sponsors and supporters was inappropriate. I recognize 
that I should not use my position in the Department to advance fund-
raising efforts by nonprofits. Filming should not be done in the 
Pentagon in a manner where the surroundings are identifiable and could 
be perceived as official endorsement by the Department. At the time, it 
did not seem inappropriate, however, knowing what I know now and 
considering my position today I would decline to be interviewed.

    3. Senator Levin. Secretary Geren, do you believe that it would be 
appropriate for you to participate in such a video as Secretary of the 
Army or Acting Secretary of the Army?
    Mr. Geren. No. It would not be appropriate to use my position in 
DOD to endorse any other organization other than the Combined Federal 
Campaign (CFC), Army Emergency Relief, and those organizations listed 
in the Joint Ethics Regulation, section 3-210, for which official 
support is authorized. Further, I recognize that even though I may 
endorse the CFC, it is inappropriate to use my position to endorse any 
individual participant.

    4. Senator Levin. Secretary Geren, what impact, if any, do you 
believe your participation in this video is likely to have on your 
credibility on issues regarding the role of religion in the military, 
should you be confirmed as Secretary?
    Mr. Geren. I hope it will have no impact, but I cannot predict with 
certainty how the matter may be viewed or construed by others. I 
believe you will find that my record, both public and private, would 
demonstrate that I respect the rights, liberties, and beliefs of 
others. I assure you that, if confirmed, I will conduct the 
responsibilities of this office fully respectful of the religious 
beliefs of all faiths, and of those who have no faith.

                  U.S. ARMY FORCE STRUCTURE IN EUROPE

    5. Senator Levin. Secretary Geren, in your written responses to the 
advance policy questions regarding basing options to support the 
proposed growth of the Army, you state that there are no plans to use 
European basing options. This contradicts the Army's notice of intent 
published in the Federal Register on May 16, 2007. This notice 
describes the Army's proposed programmatic environmental impact 
statement (PEIS) for basing options to support the proposed growth of 
the Army, and specifically refers to bases outside the United States. 
Please clarify your written response to this question. Is the Army 
considering options to put any newly created units in Europe?
    Mr. Geren. The PEIS is one of several tools used to assist 
decisionmakers. As required by the National Environmental Policy Act, 
the PEIS will analyze alternatives that are reasonable and realistic as 
we develop solutions to station the larger Army force. One of the 
alternatives will look at using existing infrastructure in order to 
properly analyze environmental impacts. However, our current strategy 
is based on the Global Defense Posture Review that calls for a more 
continental United States (CONUS)-based, joint and expeditionary Army.

    6. Senator Levin. Secretary Geren, is the Army considering options 
that would leave units in Europe that might otherwise have been 
relocated to the United States prior to the proposal to increase the 
size of the Army?
    Mr. Geren. The Army is currently executing the Global Defense 
Posture Review which restations a number of Germany-based units to 
CONUS locations and is programmed to be completed by fiscal year 2011. 
The Army must, however, continue to assess the continually changing 
strategic environment so that it can support our National Security and 
Military Strategy and meet the combatant commanders' requirements while 
fighting the global war on terror. For analytical assessments, this 
leaves all options open for consideration. At this time, there have 
been no recommendations or plans submitted by the Army to the Office of 
the Secretary of Defense (OSD) for stationing additional forces in 
Europe or to reverse previous decisions regarding the 2004 Global 
Defense Posture Review.

    7. Senator Levin. Secretary Geren, your answer may not be the same 
to both questions, yet in either case, such actions, which your Federal 
Register notice states the Army is considering, would require the Army 
as a manner of prudent management to make these basing decisions before 
making any irrevocable decisions to return property to the German 
government. Is the Army going to make these basing decisions before 
turning over any property in Germany that might be needed to support 
the basing options described in the Army's Federal Register notice?
    Mr. Geren. DOD should not take irrevocable action to return 
property or move units from overseas before it has determined the CONUS 
locations for the new Brigade Combat Teams (BCTs). Installations in 
Germany should be considered strategic assets and any action to return 
property to host nations must be carefully weighed against future 
strategic requirements and previous decisions.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

                   SEAMLESS ADMINISTRATION TRANSITION

    8. Senator Reed. Secretary Geren, administration changes are often 
times of discontinuity in Service programs, policies, and even 
personnel. These discontinuities could lead to a loss of critical 
capabilities while the Army is still heavily engaged in Iraq, 
Afghanistan, and elsewhere. If confirmed, what do you plan to do to 
make the transition between administrations more seamless and having 
the least negative impact on Army capabilities, soldiers, and 
civilians?
    Mr. Geren. My goal is to do everything possible to make the 
transition to a new administration seamless and as least disruptive as 
possible for the Army. I will work with civilian and military leaders 
in the Army to plan and execute the transition in full cooperation with 
the representatives of the new administration. During a change in 
administration each Service has a presidential appointee from the 
previous administration in place during the transition of 
administrations for continuity. The Administrative Assistant to the 
Secretary of the Army manages the political transition for the Army. 
She will work with the Director of the Army staff and the transition 
team of the incoming official to ensue a seamless transition for both 
the Army and the incoming official. The Director of the Army staff is 
enlisted to assist in collecting information papers from the Army staff 
to provide the incoming official, after confirmation, information they 
will require in their first 90 days in office. A travel schedule is 
also developed to get the incoming official to see and meet with Army 
installations. To aid in this transition, I will also make available 
all necessary records and files as well as make myself personally 
available to the transition team.

                         MANUFACTURING RESEARCH

    9. Senator Reed. Secretary Geren, if confirmed, how will you ensure 
that the Army's Manufacturing Technology program is effective in 
developing manufacturing technologies and processes that can increase 
the capability and reduce the costs of Army systems?
    Mr. Geren. The ability to efficiently manufacture technologically 
advanced material is essential to achieve our science and technology 
(S&T) strategy. I would sustain our efforts to synchronize 
manufacturing processes and new technology development. This increases 
the opportunities to accelerate technology transition into production 
and to provide enhanced capabilities to our soldiers. For mature 
technologies that are already fielded in systems, the manufacturing 
technology program seeks to develop improved components and or 
techniques to manufacture components to reduce production costs or 
sustainment costs.

    10. Senator Reed. Secretary Geren, how will you work to ensure that 
these innovative manufacturing processes are widely distributed and 
adopted throughout the defense industrial base?
    Mr. Geren. I will support continued industry collaboration and 
information sharing about innovative manufacturing technology processes 
to promote industry-wide understanding and implementation of advanced 
techniques to reduce acquisition and sustainment costs of Army systems.

                   ARMY UNIVERSITY RESEARCH PROGRAMS

    11. Senator Reed. Secretary Geren, if confirmed, how will you 
determine what is the appropriate level of investment for the Army in 
university research programs that develop next generation combat 
capabilities while training the next generation of engineers, 
scientists, and technology leaders?
    Mr. Geren. The Army's S&T investment portfolio seeks balance across 
the three budget activities of basic research (18 percent), applied 
research (40 percent), and technology development (42 percent) to 
transform new understanding into enabling technology for warfighting 
capability. We believe this to be an appropriate balance to execute our 
S&T strategy that seeks to provide near-term solutions to warfighter 
needs today while simultaneously pursuing research that will enable 
brand new or perhaps unforeseen technology applications in the mid- and 
far-term. We invest roughly 18 percent of the requested S&T budget or 
over $300 million a year into basic research. Of that nearly 70 percent 
is provided to universities. Despite many competing demands for 
resources to engage in the global war on terrorism we have been able to 
sustain roughly this level of research funding since the beginning of 
the decade. Army research funding has been sufficient to capitalize on 
new opportunities in nanoscience and biosciences as well as advanced 
simulations to enable technology in new types of materials for soldier 
protection, situational awareness, and sustainment. It is always 
challenging to determine an optimum amount in any area of investment; 
however, based upon our experience we think that the research 
investment levels are appropriate to the total investment in research 
and development at $10.6 billion in the President's budget request for 
fiscal year 2008.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                          TROOP MAIL DELIVERY

    12. Senator Akaka. Secretary Geren, as we discussed during your 
hearing, the Army Times last week reported on the massive backlog of 
mail delivery at Walter Reed. According to the article, the backlog was 
the fault of a contract employee who held onto mail for individuals who 
he was unable to locate. You indicated that you have not yet verified 
whether this problem is unique to Walter Reed, and is not occurring at 
our other medical centers. Would you please check to see if this is an 
isolated instance, and notify us of your findings when you are done?
    Mr. Geren. The incident at Walter Reed was an isolated event. I 
directed an assessment of the 10 most populated medical hold mail 
facilities for Wounded Warrior Transition Units and all 10 facilities 
received a satisfactory rating.

    13. Senator Akaka. Secretary Geren, in 2004, the Government 
Accountability Office (GAO) recommended that the Secretary of Defense 
develop and implement an action plan based on lessons learned from 
Operation Iraqi Freedom (OIF) to resolve issues with mail delivery to 
the troops in Iraq and Afghanistan. The GAO report was report number 
GAO-04-084, titled, ``Operation Iraqi Freedom Longstanding Problems 
Hampering Mail Delivery Need to Be Resolved,'' dated April 2004. DOD, 
in its formal review of this report, concurred with GAO's 
recommendations and was, at the time, taking steps to implement them. 
During your confirmation hearing, I asked you if you knew whether DOD 
had completed the actions recommended in the GAO report, and if any 
surveys of the troops have been conducted to see if their satisfaction 
with the mail service has improved. You indicated that you did not 
know, but would check into it and find out. Would you please inform us 
of your findings?
    Mr. Geren. DOD has implemented the recommendations for executive 
action as specified in the GAO report. Currently, the primary method of 
measuring our quality assurance of mail service provided is through the 
DOD Interactive Customer Evaluation system (ICE). This is a Web-based 
customer survey available to all DOD employees to submit complaints or 
comments on a variety of issues, including the postal service. 
Currently, neither ICE nor installation commanders have generated any 
negative reports back to the Military Postal Service Agency. The U.S. 
Army Military Postal Service Agency is committed to providing the 
highest quality of service in support of all servicemembers deployed 
around the world.

                            STRYKER TRAINING

    14. Senator Akaka. Secretary Geren, as you may know, the Army has 
agreed to limit training necessary to prepare the 25th Infantry 
Division's 2nd BCT to fight in Iraq as a Stryker Combat unit. Based on 
the Army's own assessment of its needs, it is my understanding that 
five training programs, four at Schofield Barracks and one at the Big 
Island's Pohakuloa Training area, were allowed to continue. Do you 
believe that the more limited training program outlined by the Army 
will afford Hawaii's Stryker Brigade the training necessary to fulfill 
their mission requirements? If your answer is no, do you anticipate 
that the Army will need to transfer the Stryker Brigade training 
activities currently conducted in Hawaii to an alternate location?
    Mr. Geren. The limitations on training of the Stryker Brigade 
Combat Team (SBCT) were due to litigation over the environmental impact 
statement and the Army's decision to transform the 2-25 to a SBCT in 
Hawaii. The litigation resulted in the 9th U.S. Circuit Court of 
Appeals and the U.S. District Court in Hawaii placing temporary 
injunctions on this transformation and training until the Army 
completes a Supplemental Environmental Impact Statement. The Army then 
outlined an extensive training program, consisting of live fire and 
non-live fire training tasks, necessary to transform 2-25 SBCT and 
prepare it for deployment to Iraq later this year. In its Interim 
Injunction Order, the U.S. District Court allowed the Army to proceed 
with a limited training program, as well as the completion of the 
Stryker equipment fielding process.
    What you refer to as the five training programs the Court allowed 
the Army to proceed with are actually five Stryker-related construction 
projects, not training programs. Three of these construction projects 
are training ranges, one is the Stryker motor pool and one is the 
multiple deployment facility. These are the projects the Army 
identified as being critical to preparing 2-25 SBCT for its deployment.
    The training of 2-25 SBCT in Hawaii has been conducted within the 
limits of the injunction. It will be supplemented with training at the 
Southern California Logistics Area in August which is necessitated by 
the scope of the injunction. This training, in conjunction with 
training in September to be conducted at the National Training Center 
in California, will ensure the unit is combat-ready when it arrives in 
Iraq.
    The Army must retain the ability to train Pacific-based units on 
Hawaii, including the Hawaii-based Stryker brigade. Our units in Hawaii 
provide critical support to the Commander, U.S. Pacific Command. The 
unit must be prepared to respond to quick reaction contingencies within 
the Pacific. To do this, units stationed in Hawaii require the 
capability to train in Hawaii to ensure they are ready for deployment, 
without the lengthy notification and off-island training periods 
afforded to us in our support of OIF. This training capability is 
particularly essential for our company level units and leaders.

    15. Senator Akaka. Secretary Geren, has the Army's Environmental 
Command established a time line for the completion of the court ordered 
supplemental environmental impact statement?
    Mr. Geren. Yes. The supplemental environmental impact statement is 
scheduled for completion by November 5, 2007, with a record of decision 
by December 5, 2007, which then completes the National Environmental 
Policy Act (NEPA) process.

                        NATIONAL GUARD EQUIPMENT

    16. Senator Akaka. Secretary Geren, one of the concerns that is 
being expressed by many States today is the shortage of equipment for 
National Guard, and the potential that equipment shortages may make it 
difficult for the Army National Guard (ARNG) to respond effectively to 
any disasters that may occur. Most National Guard units were not fully 
equipped before the Iraq War, and the equipment shortages have been 
made more severe by the Guard deployments in Iraq and Afghanistan. The 
problem is exacerbated for Hawaii (and probably Alaska, too) because of 
the physical separation from the rest of the States making it difficult 
for neighboring States to provide assistance in the event of a 
disaster. Has the National Guard developed plans by which they can 
rapidly share equipment between neighboring States during a disaster 
until such time as equipment resets can be completed? In particular, 
are there plans in place that would provide rapid assistance to more 
remote locations, such as Hawaii, in the event of a disaster that 
overwhelms the remaining capabilities of the Hawaii National Guard? If 
not, will you, if confirmed, ensure that plans are made for such a 
contingency?
    Mr. Geren. There are several plans in place to augment the military 
equipment of the Hawaii and Alaska National Guard as needed in response 
to a homeland security event. National Guard Regulation 500-3, Response 
Management Plan, for Civil Support Team (CST) responses, outlines the 
plan to share CSTs among States. All States, the District of Columbia, 
Puerto Rico, and the Virgin Islands are participants in Emergency 
Management Assistance Compact system (Guam is not). Every State also 
makes more specific agreements with surrounding States in various forms 
for support in the event of a natural or man made disaster, as part of 
their emergency response planning process. Hawaii and Guam have 
agreements in place with U.S. Army Pacific for Active-Duty support 
during hurricanes. The Active Army and Army Reserve have identified 
military equipment that could go to each State as requested. We expect 
that these plans will be most effective in a predictable scenario. 
Sharing equipment, particularly over the long distances to Alaska and 
Hawaii, costs time. A scenario that arrives without warning or multiple 
homeland security events will strain this plan. This is why the Army 
plans to invest $21 billion in restocking National Guard equipment 
before the end of the Future Years Defense Plan, which will restore the 
percentage of National Guard domestic equipment at the nearly pre-
September 11 level.

                            DEPLETED URANIUM

    17. Senator Akaka. Secretary Geren, on June 13, 2007, the Honolulu 
Weekly published an article discussing depleted uranium (DU) issues in 
Hawaii. As you may already know, a number of spotting rounds that 
contained DU were found at Schofield Barracks while construction was 
being performed for the Stryker Brigade. What is troubling about the 
article is that it discusses how the Army has been unresponsive to the 
concerns of local residents on this issue. This is of great concern for 
me as it affects the safety of the community. Has the Army ever stored 
DU munitions or any other form of DU anywhere in Hawaii or the 
surrounding waters? If so, what is the current status of these 
facilities?
    Mr. Geren. Let me first assure you that public safety is our first 
and foremost concern. Our dedication to responsiveness and the 
protection of public health have shaped our actions since we discovered 
DU fragments from the M101 spotting round.
    We first learned that DU was used at Schofield Barracks in the 
summer of 2005, when fragments from M101 spotting rounds for the Davy 
Crockett weapon system were discovered during range modernization 
efforts. Until this discovery, we were not aware that this formerly 
classified weapon system had been used in training on Hawaii. As soon 
as we became aware of the DU, we provided information about the 
potential effects of DU to the command for distribution and began 
archival research to determine the source and extent of the M101's use 
in Hawaii. We have learned that 714 M101 spotting rounds, containing 
6.7 oz each of DU, were shipped to Hawaii in April 1962.
    Although there is no record that these munitions were used at 
Schofield Barracks, the presence of the DU fragments from the M101 
spotting round indicates that training with this round was conducted on 
this range during the mid-1960s. From our archival research, we also 
learned that the range footprints of the Makua Military Reservation and 
the Pohakuloa Training Area would accommodate training with this 
munition. As you may be aware from recent articles in Hawaii's press, 
we have now conducted a scoping survey to determine if the M101 
spotting rounds were also used at these ranges. Our survey confirmed 
the presence of DU fragments at the Pohakuloa Training Area, but was 
inconclusive at the Makua Military Reservation because of heavy 
vegetation in the likely impact area, if the M101 had in fact been used 
at Makua. We have also initiated a more detailed survey of Schofield 
Barracks' range and determined that further investigation is required 
for this range and the Pohakuloa Training Area, where DU was determined 
present.
    We have been working, and continue to work, with the Nuclear 
Regulatory Commission (NRC) and the Hawaii State Department of Health 
to conduct the required investigations. We will continue this 
collaborative effort as we evaluate the survey's results and determine 
the response required to ensure the protection of human health and the 
environment from the potential effects of DU. Additionally, we are 
coordinating our efforts with the Centers for Disease Control and 
Prevention, Agency for Toxic Substances and Disease Registry, to obtain 
their input on the medical aspects of our efforts. We have initiated 
dialog with senior members of the State Legislature and the Governor's 
Office to inform them of our plans. Further, we have initiated a public 
outreach effort to provide updates to the public through the media and 
develop other venues to ensure the widest dissemination of information 
on the subject and our ongoing efforts to address DU.
    Although the DU present at the impact areas on Schofield Barracks' 
ranges and the Pohakuloa Training Area ranges does not present a hazard 
to the public, we understand that it is a topic of significant interest 
to the public and will ensure that our actions in response to the DU 
are carried out in a transparent way.

    18. Senator Akaka. Secretary Geren, if they still have DU stored in 
them, have the facilities been licensed by the NRC for DU storage?
    Mr. Geren. We are not storing DU munitions in Hawaii and have no 
plan to do so. To our knowledge, the only DU present in Hawaii from 
munitions-related activities consists of fragments from training 
conducted between 1962 and 1968 using the M101 spotting round for the 
Davy Crockett weapon system. We are currently working with the NRC and 
the Hawaii State Department of Health to: (a) complete a detailed 
survey of Schofield Barracks' range; (b) determine the actions 
required, now that our scoping survey has verified the presence of DU 
fragments on the Pohakuloa Training Area; and (c) decide what approach 
will be taken to address the Makua Military Reservation where 
overgrowth and explosive hazards precluded the conduct of a scoping 
study. We will continue this collaborative effort as we evaluate the 
results of our completed surveys, and determine the response required 
to ensure the protection of human health and the environment from the 
potential effects of DU.
    If required to support our response action, we will obtain an 
appropriate license from the NRC.

    19. Senator Akaka. Secretary Geren, has the Army ever used DU for 
any purpose (i.e., for munitions or any other purpose) anywhere in 
Hawaii or the surrounding waters? If so, where?
    Mr. Geren. We have found records indicating 714 M101 spotting 
rounds containing DU, for the Davy Crockett weapons system, were 
shipped to Hawaii in 1962. We have identified DU fragments from these 
munitions on both Schofield Barracks' range complex and the Pohakuloa 
Training Area. While we have evidence to indicate that certain areas 
within the Makua Military Reservation were also able to accommodate 
training with the M101 spotting round, overgrowth and explosive hazards 
precluded our ability to verify safely whether DU fragments are also 
present in these areas.
    To the best of our knowledge, no other Army weapon systems that use 
DU munitions have been fired at PTA. Although the Army has several 
current systems capable of firing DU munitions, these munitions are not 
used in Hawaii. A Nuclear Regulatory License is required to fire such 
munitions. The Army does not have such a license and has no plans for 
activities in Hawaii that would require such an authorization.

    20. Senator Akaka. Secretary Geren, if so, what has been done to 
ensure the safety of citizens from potential exposure to DU?
    Mr. Geren. Once we became aware that DU was present on Schofield 
Barracks' range, we initiated monitoring for DU in surface water 
runoff. Although trace uranium is present, it is well within 
Environment Protection Agency (EPA) safe drinking water standards. 
Until further review, we are unable to determine whether the trace 
uranium found is naturally occurring uranium or manmade (DU). When our 
archival research indicated that certain areas within both the Makua 
Military Reservation and Pohakuloa Training Area could have supported 
firing of the M101 spotting round, we initiated action to conduct a 
scoping study of these areas to determine whether it was also used in 
those areas.
    We are currently working with the NRC and the Hawaii State 
Department of Health to: (a) complete a detail survey of Schofield 
Barracks' range; (b) determine the actions required, now that our 
scoping survey has verified the presence of DU fragments on the 
Pohakuloa Training Area; and (c) decide what approach will be taken to 
address the Makua Military Reservation where overgrowth and explosive 
hazards precluded the conduct of a scoping study. We will continue this 
collaborative effort as we evaluate the results and determine the 
response required to ensure the protection of human health and the 
environment from the potential effects of DU.
    Additionally, we are coordinating our efforts with the Centers for 
Disease Control and Prevention to obtain their input on the medical 
aspects of our efforts. We have initiated dialog with senior members of 
the State Legislature and the Governor's Office to inform them of our 
plans. Further, we have initiated a public outreach effort to provide 
updates to the public through the media and develop other venues to 
ensure the widest dissemination of information on the subject and our 
ongoing efforts to address DU.

    21. Senator Akaka. Secretary Geren, has the Army taken any steps to 
address the concerns of the local residents cited in the article? If 
not, why not?
    Mr. Geren. The Deputy Assistant Secretary of the Army for 
Environment, Safety, and Occupational Health, Mr. Tad Davis, is 
currently engaged in an outreach plan with local media through print, 
radio, and internet. Secretary Davis has briefed staff from the offices 
of Senators Inouye and Akaka, Representatives Abercrombie and Hirono, 
State legislators, and other stakeholders to outline the Army's four-
point plan regarding DU in Hawaii.
    The Army's four-point plan to address DU is as follows:

          (1) We have and will continue to provide all information 
        obtained to the Hawaii State Department of Health in a timely 
        manner.
          (2) The State has been, and will remain, a partner in the 
        planning and execution of our extensive survey and monitoring 
        effort this summer to address Schofield Barracks' range, Makua 
        Military Reservation, and Pohakuloa Training Area.
          (3) The State will be a partner in the planning and execution 
        of a mutually agreed upon response.
          (4) The Army will provide any necessary training to State 
        participants.

    On August 29, 2007, we assembled a panel of experts, from every 
functional area involved in the survey process, including 
representatives from a variety of Army agencies, the State of Hawaii 
Department of Health, the NRC, the Agency for Toxic Substances and 
Disease Registry, and Cabrera Services, the contractor performing the 
survey, and conducted a press conference at Schofield Barracks' range 
area with all major media outlets to explain our survey process, 
demonstrate the technology used to detect DU, and respond to questions.
    Our plan is to provide all information we obtained about DU's use 
in Hawaii to the Hawaii State Department of Health and the NRC, to work 
with these agencies to conduct the necessary investigations, and to 
include these agencies in execution of any response necessary to ensure 
the protection of human health and the environment. In addition, we 
will provide any necessary training to our State partners.

    22. Senator Akaka. Secretary Geren, is the Army planning to conduct 
an outreach to the local citizens to address their concerns and to 
explain what the Army is doing about them? If not, why not?
    Mr. Geren. We are committed to ensuring an open and collaborative 
approach with the people of Hawaii as we seek to address their concerns 
regarding the presence of DU. We will continue to reach out to Hawaii's 
legislators, press, and public health organizations as we work with the 
NRC and the Hawaii State Department of Health to determine the response 
necessary to ensure the protection of human health and the environment 
from the potential effects of DU. Our August 29, 2007, press conference 
demonstrated our commitment.

                            LAND ACQUISITION

    23. Senator Akaka. Secretary Geren, on June 21, 2007, USA Today 
published an article about the Army's need to acquire significant 
amounts of land to be able to support combat training with advanced 
combat technology. The article states that the Army currently uses 
about 7 million acres on 102 training sites and ranges across the 
country, and needs to expand those training sites by 70 percent over 
the next 4 years. This means that the Army will be looking to purchase 
another 4.9 million acres by 2011. The article also states that 
``Proposals already underway in California, Colorado, and Hawaii would 
add 540,000 acres.'' How much total property is the Army looking to 
acquire in Hawaii?
    Mr. Geren. The USA Today article contained factual errors. The Army 
has a 5 million acre doctrinal training land shortfall worldwide; 
however; we are not pursuing that amount of land for acquisition. Land 
acquisition is a relatively small (albeit important) part of the Army's 
overall effort to meet its training land requirements. The Army plans 
to meet its training land shortfall mainly through focused management 
to maximize existing land holdings, buffering through partnerships, 
utilization of other Federal lands where possible, and greater reliance 
on simulators.
    The Army already expanded the Pohakuloa Training Area, on the 
island of Hawaii, and Schofield Barracks, on the island of Oahu, for a 
total of 26,000 additional acres. This land acquisition, referenced in 
the USA Today article, is complete and at this time, there are no plans 
for additional land acquisition in Hawaii.

    24. Senator Akaka. Secretary Geren, what locations is the Army 
considering for making these acquisitions?
    Mr. Geren. In 2003, Headquarters, Department of the Army G-3, 
approved the Range and Training Land Strategy (RTLS). The purpose of 
the RTLS is to address the increasing land deficit facing the Army. The 
RTLS serves as the mechanism to prioritize Army training land 
investment, and helps to optimize the use of all Army range and 
training land assets. The RTLS provides a long-range plan for the Army 
to provide the best range infrastructure and training land to units.
    The RTLS has five phases. The first phase was to inventory current 
Army training assets. The inventory was completed in 2002 and covered 
nearly 500 Active and Reserve component installations and training 
locations. The second phase examined land values, parcel ownership, 
environmental constraints, environmental requirements, and population 
trends from public records to identify opportunities for training land 
acquisition and buffering. The third phase analyzed available land data 
to recommend short-term and long-term opportunities based on Army 
training priorities. The RTLS process ensures that Army planners 
continually reevaluate against the Army Campaign Plan (ACP), so that 
any investment decisions will match stationing changes. The fourth 
phase was the establishment of planning objectives and the 
identification of installations where land acquisition supports the 
ACP. The key to this phase was to ensure that any land acquisition 
effort was feasible, affordable, and manageable in terms of 
environmental restrictions. Due to the timing of this fourth phase, the 
Army was able to inform base realignment and closure stationing 
recommendations with respect to training land, indicating where there 
is potential to mitigate land deficits through long-term investment and 
management. The fifth and final phase was to evaluate public attitudes 
and provide outreach support to specific land acquisitions.
    The deliberate phases of the RTLS provide the framework for the 
Army to select the most appropriate course of action to address 
training land shortfalls at specific Army installations. The options 
that the Army can pursue include focused management to maximize 
existing land holdings, buffering through partnerships, utilization of 
other Federal lands where possible, and land acquisition.
    In response to the National Defense Authorization Act for Fiscal 
Year 2007, section 2827(c), the Army has submitted a Report to Congress 
on Potential Expansion of Army Operational Ranges. In this document, 
the Army provides details concerning training requirements for Army 
units and the underlying reasons for changes to unit training 
requirements for land and alternatives to meet training land 
shortfalls.
    As stated previously, the Army is not looking at acquiring 
additional land in Hawaii. In California, the Army is currently 
acquiring additional training and mitigation land around the National 
Training Center. Additionally, the Army has received approval from the 
Secretary of Defense to pursue up to 418,000 acres of additional 
training land to expand PCMS in Colorado, and the Army is working 
closely with Congress to improve that land acquisition strategy. If 
additional acquisition elsewhere is deemed necessary, the Army would 
submit a waiver to DOD land acquisition moratorium, and if approved by 
OSD, work with Congress and the public to explain the rationale and 
proceed as required by law and regulation.

    25. Senator Akaka. Secretary Geren, has the Army begun any outreach 
to the local population to engage and inform them about the Army's 
plans? If not, will the Army be doing so in the near future? If not, 
why not?
    Mr. Geren. The Army works hard to effectively communicate with its 
neighbors about our plans. When we have significant new actions, the 
NEPA process becomes the structured format for involving the community 
and allowing a process for questions and comments.
    In addition to the formal public involvement process driven by 
NEPA, the Army has developed a Sustainable Range Program (SRP) Outreach 
and Communication Campaign to improve public support and the Army's 
understanding of public concerns related to live training. The Campaign 
provides installations with a strategy to easily and effectively 
communicate with the public regarding live fire training and 
encroachment challenges. A training support package has been designed 
as a part of the SRP Outreach and Communication Campaign to provide 
installation staff with tools to help communicate with stakeholders 
(government and non-government) and the local community on sustainable 
range issues.
    The Army is also working with OSD to establish positions which 
support our local commanders with community outreach capabilities. 
These positions will build on the expertise of the Public Affairs 
Community, but go beyond our focus on media outlets to create a more 
enduring relationship with people and organizations.

                           MEASURING SUCCESS

    26. Senator Akaka. Secretary Geren, DOD has been providing 
quarterly briefings to Congress on measuring our success in Iraq. One 
of the parts of the report discusses which provinces have been turned 
over to the Iraqi Government for full Iraqi control, including 
provincial security. One of the seven provinces which have been turned 
over to Iraqi control is the Maysan Province, which the Iraqis took 
over on April 18, 2007. According to DOD, several other provinces are 
close to meeting the criteria necessary for ``security independence.'' 
During the last week, British and Iraqi forces conducted raids in Amara 
in the Maysan province. The British forces did much more than provide 
logistical support. They were, in fact, part of the operational force. 
Twenty people, characterized as militants, insurgents, Shiite 
militiamen, and terrorists in different media reports, were killed. It 
does not seem like the Iraqis have truly obtained security independence 
in Maysan province if every time they deal with internal security 
issues, they need coalition forces to assist. For measures of success 
to be useful, they must be meaningful. Do you believe that the measure 
of turning over provincial security to the Iraqis is a meaningful 
measure of success? If so, why?
    Mr. Geren. Sir, I appreciate your question; however, it would be 
more appropriately addressed by the combatant commander in Iraq.

            DEPLOYMENT HEALTH CLINICAL CENTER AT WALTER REED

    27. Senator Akaka. Secretary Geren, according to the June 18, 2007, 
article on Walter Reed in the Washington Post, the Deployment Health 
Clinical Center (DHCC) at Walter Reed is one of the best treatment 
centers for Post Traumatic Stress Disorder (PTSD) in the country. 
Unfortunately, it is small and can only handle about 65 patients a 
year. The article rightly points out that this facility should be 
expanded given the patient workload coming out of Iraq and Afghanistan. 
Instead, the article says that the DHCC was forced to give up newly 
renovated quarters in March and was placed in temporary space one-third 
the size to make room for a Soldier and Family Assistance Center. Given 
that psychological injuries currently outnumber physical injuries to 
our troops by a factor of 40-to-3, what message does reducing the space 
for the DHCC, and failing to expand the program of treatment offered by 
the DHCC, give the troops who have psychological injuries?
    Mr. Geren. While the care DHCC is offering for PTSD is a critical 
component of the spectrum of care for soldiers with war-related PTSD, 
only 5 percent of affected soldiers require this level of care, are 
clinically appropriate for it, and consent to participate. This 
translates to about 1 percent of all Walter Reed psychiatric patients. 
This suggests that while there may be a role for expansion of DHCC's 
program to other sites, it is not the solution for the majority of 
soldiers requiring psychiatric treatment.
    It is true that the DHCC was moved to make room for the newly 
expanded Soldier and Family Assistance Center. Their current location 
is temporary in order to accommodate expanded services and much needed 
renovation on a campus where space is at a premium. The command at 
Walter Reed is comprehensively addressing space requirements to best 
serve the needs of patients, families, and staff. This is part of the 
Army's commitment to ensuring all soldiers receive a level of medical 
care and support services commensurate with the quality of their 
service. Toward that end, we are working closely with DOD to establish 
a National Center of Excellence for Psychological Health and Traumatic 
Brain Injury. The mission of the Center will be to coordinate Service 
programs for TBI and psychological health by establishing best 
practices, research, and education.
    In addition, this summer the Army launched an unprecedented 
``leader-teach'' program designed to raise awareness, promote 
treatment, and reduce the stigma associated with seeking behavioral 
health care. The leader-teach training program involves leaders 
teaching their soldiers in a small-unit environment about the signs and 
symptoms of PTSD and mild TBI. General Casey kicked off the training at 
the 4-star conference on 22 June 2007. All soldiers in the Army--both 
Active and Reserve component--are required to receive this important 
face-to-face training over the next 90 days.

    28. Senator Akaka. Secretary Geren, how do doctors at Walter Reed 
justify placing some PTSD patients in the DHCC while others receive 
less effective treatment (i.e., group therapy)?
    Mr. Geren. WRAMC is totally committed to the proper treatment of 
soldiers with combat-related illnesses such as PTSD. All casualties are 
screened for the presence of trauma-related illness. Those patients for 
whom illnesses like PTSD are identified receive a thorough, 
comprehensive diagnostic evaluation and treatment plan. The entire 
spectrum of treatments is considered, including all those recommended 
by the National Center for PTSD Studies, the American Psychiatric 
Association, and the VA/DOD Clinical Practice Guideline for the 
management of Post-Traumatic Stress outlined below:

          Medication therapies (SRI, anxiolytics, sleep aids, etc.)
          Individual therapies (cognitive therapy, exposure therapy, 
        eye movement desensitization and reprocessing, stress 
        inoculation training)
          Group therapies (supportive, psychodynamic, and cognitive 
        with a trauma focus)
          Adjunctive therapies (OT, art therapy, rec therapy, 
        relaxation training, etc.)
          Clinical outcomes studies have proven the effectiveness of 
        our care.

    The therapies offered often include group therapies as an effective 
component of an overall treatment program. No patients are treated with 
group therapy to the exclusion of other effective therapies. Effective 
treatment is patient-centric and WRAMC strives to place all soldiers in 
the treatment regimen most appropriate to each soldier's needs.
    The Specialized Care Program offered by DHCC is an additional level 
of care that is part of a spectrum of care that is required for a small 
percentage of the more highly symptomatic patients. Not all patients 
require this level of intensity for a full recovery, just as all 
patients with any illness do not require hospitalization or an 
intensive care unit to recover from their illness.
    In an effort to better address and coordinate care for PTSD, the 
Army is working closely with DOD to establish a National Center of 
Excellence for Psychological Health and Traumatic Brain Injury. The 
mission of the center will be to coordinate Services programs for TBI 
and Psychological Health by establishing best practices, research, and 
education. The center will also have VA liaisons and serve as a center 
for collaboration with already established VA Centers of Excellence. 
The vision for this center is to create a national resource for 
developing: clinical standards and evidence based practice; integrated 
multi-center research; excellence in education and training; and 
coordination and collaboration with Federal and non-Federal partners.

    29. Senator Akaka. Secretary Geren, in reading the June 18, 2007, 
Washington Post article on treating patients at Walter Reed with PTSD, 
I am very troubled that the article seems to show that our troops are 
not being treated equally. Some troops receive the top quality 
individual care at the DHCC while others are receiving group therapy. 
Group therapy is noted in the article as not being consistent with the 
latest research on the best treatment for PTSD. Private First Class 
Calloway, the subject of the Post article, was dropped from the DHCC 
program because he was having difficulty meeting appointments. I am 
troubled by this because he should receive treatment based on his 
symptoms, not have it taken away from him as a form of punishment. Are 
we consistently providing the best treatment possible to our troops 
suffering from PTSD or Traumatic Brain Injury (TBI)? If so, how do you 
explain the Calloway case described in the Washington Post article? If 
not, why not?
    Mr. Geren. The 3-week long Specialized Care Program offered by DHCC 
is an additional level of care that is part of a spectrum of care that 
is required for a small percentage of the more highly symptomatic 
patients. Not all patients require this level of intensity for a full 
recovery, just as all patients with any illness do not require 
hospitalization or an intensive care unit to recover from their 
illness.
    Group therapy is in common use for PTSD patients. Unfortunately 
very little research has been done to validate the effectiveness of 
group therapy, or to delineate those characteristics of therapy that 
lead to improved clinical outcomes. As the field of behavioral health 
care moves forward, it will be very important for that research to be 
done, so that we can provide optimal treatment for all our patients.
    Privacy of medical information and related legal considerations 
preclude a detailed account of the specifics of PFC Calloway's health 
care at DHCC. We do have some extraordinarily complex patients. All are 
evaluated and offered the full spectrum of treatment recommendations 
for their presenting symptoms. In some cases, patients refuse treatment 
or fail to comply with treatment recommendations, which makes it 
difficult to keep them in a structured treatment program. DHCC never 
uses availability, access, or administration of clinical treatment for 
disciplinary or punitive reasons. To use clinical treatment in this way 
under any circumstances is unethical, particularly for individuals with 
mental or cognitive disabilities. We always try to be flexible and 
adaptive to meet the individual patient's needs.
    We consistently provide the best treatment possible to our troops 
suffering from PTSD and TBI. However, we are constantly striving to 
improve. We are hiring more behavioral health staff and initiating more 
screening for TBI. We also regularly collaborate with the National 
Center for Post Traumatic Stress Disorder and with other experts in the 
civilian world to ensure that our treatment methods are the most up-to-
date.

    30. Senator Akaka. Secretary Geren, you stated in your advance 
policy question responses that ``We must not shrink from our 
responsibility as a Nation to care for those who have become ill, 
injured, or wounded in the service of our Nation--and we must do better 
for those suffering from PTSD and TBI.'' I know that all of the members 
of this committee agree with you on that point. We know that the Army 
has been taking corrective actions over the past couple of months to 
eliminate the deficiencies that were identified by the Washington Post 
back in February. My concern is that some of the corrective actions may 
create new problems. For instance, the DHCC was forced to move out of 
newly renovated facilities in March and into a temporary space one-
third the size to make room for the new Soldier and Family Assistance 
Center. The DHCC is one of the best PTSD treatment centers in the 
country. I am concerned that its effectiveness could be reduced by this 
move. What metrics are being used by the Army to measure the success of 
the corrective actions taken at Walter Reed and other Army medical 
treatment facilities?
    Mr. Geren. The Army Medical Action Plan (AMAP) is a phased effort 
designed to develop a sustainable system where injured and ill soldiers 
are medically treated and vocationally rehabilitated to prepare them 
for successful return to duty or transition to active citizenship. 
Phase 1 of the AMAP was completed on June 15, 2007, with the completion 
of 10 immediate fixes ranging from the establishment of Warrior 
Transition Units (WTUs) at Army Treatment Facilities in order to 
provide effective leadership and care management of warriors in 
transition to implementation Army-wide of the Joint Patient Tracking 
Application to track wounded warriors from the battlefield to the 
hospital; from the establishment of the Patient Care Triad of 
physician, nurse, and squad leader to coordinate the care of every 
warrior in transition to the activation of Reserve component lawyers 
and paralegals to provide legal advocacy for warriors undergoing the 
Physical Evaluation Board process. We have now entered Phase 2 of the 
AMAP with new policies and standards of excellence in place. The focus 
has shifted to supporting our newly-formed WTUs. The performance 
measures are being finalized to ensure that a clear and common 
understanding exists Army-wide of these new policies and standards, and 
the resources needed for continued success. Beginning July 23, 2007, 
these performance measures will begin to be evaluated at all locations 
throughout the Army with WTUs. The capability to measure and track 
compliance with all the requirements of the AMAP has been developed and 
will be important as the Army medical department and Army leadership 
continues to institutionalize the AMAP. To this end, measurable 
outcomes have been developed for each action and will be used to 
identify successes, as well as to identify areas needing specific 
attention.

    31. Senator Akaka. Secretary Geren, what have the metrics shown so 
far?
    Mr. Geren. The metrics of greatest concern at this time are those 
that track timeliness of completion of AMAP tasks, as specified in 
Department of the Army Execution Order (EXORD) 118-07, Healing 
Warriors. The first order of business is to staff the Warrior 
Transition Units (WTUs) with nurses, physicians, and squad leaders to 
work as a team (referred to as a Triad in the AMAP) that works directly 
with warriors in transition and their families. Command and control 
personnel have already been assigned to all 35 WTUs and efforts to 
staff these units to attain a minimum of 50 percent strength by 
September 3, 2007, to Initial Operational Capability (IOC) are 
proceeding. Currently, eight WTUs are staffed at essentially the 90 
percent level necessary to attain full operational capability (set in 
the EXORD to be completed for all WTUs by January 1, 2008). 
Additionally, 11 WTUs are staffed at greater than 50 percent strength 
for a combined total of 19 of 35 units (54 percent) already at the 
level required by September 3, 2007. Efforts continue to staff the 
remaining 16 WTUs to accomplish IOC. Currently being finalized are the 
performance standards, checklists, and tracking capability to be 
utilized when teams begin their staff assistance visits as part of 
Phase 3 of the EXORD, beginning July 23, 2007. The initial intent of 
these visits and the results obtained is to provide both Army Treatment 
Facility and WTU unit commanders an initial ``yardstick'' by which to 
measure success to date in implementing the AMAP. Additionally, these 
tracking reports will provide senior leadership a complete yet concise 
means of identifying both successes and shortcomings. This tracking 
capability will also be valuable in the long-term to monitor ongoing 
operations in support of the AMAP.

                           STRATEGIC RESERVE

    32. Senator Akaka. Secretary Geren, you stated in your advance 
policy question responses that ``As we have increasingly utilized the 
National Guard at home and overseas, it has become clear that the 
National Guard must be organized, trained, and equipped to serve as an 
integral part of our operational force, not a `Strategic Reserve.' '' 
Do you believe that a ``Strategic Reserve'' of troops is no longer 
needed by the United States? If so, why? If not, who will serve as our 
Strategic Reserve now that the National Guard and Reserves are part of 
our operational force?
    Mr. Geren. The geostrategic environment of persistent conflict 
requires that our Army be responsive and flexible, and able to meet the 
demands of an expeditionary force. We no longer have the luxury of 
extended time periods for training after mobilization. Additionally, 
QDR 2006 directed the Army to operationalize the Reserve components. As 
such, we have implemented the ``train-alert-deploy'' model, to ensure 
that Reserve units are ready prior to mobilization. Using this model, 
Reserve units now provide a greater ability to support Homeland and 
contingency requirements. The Army now uses the Army Force Generation 
(ARFORGEN) model, a cyclic training and readiness process, which 
synchronizes strategic planning, prioritization, and resourcing. 
ARFORGEN fields available forces, Active or Reserve, to meet global 
demands and will prepare forces in the ready pool to deploy to meet any 
contingency requirements. With the Reserve component operating in the 
ARFORGEN model--1:4, we would in effect have a Strategic Reserve in the 
Reserve component units who are not in the ready pool, but would be 
available if full mobilization were necessary. With ARFORGEN and 
sufficient and timely funding, the Army will continue to field the best 
led, equipped, manned, and trained cohesive units for deployment at 
home and abroad.

                     EXPANDING THE WAR ON TERRORISM

    33. Senator Akaka. Secretary Geren, according to a recent State 
Department report, terrorists are changing their tactics. Specifically, 
the report states that early terrorist attacks were largely 
expeditionary, with terrorists selected and trained in one country, 
then secretly inserted into the target country to conduct their attack. 
The report further states that the new trend is toward guerilla 
terrorism, where the terrorist team is grown close to its target, using 
target country nationals. Finally, the report states that this trend is 
a shift in the nature of terrorism, from traditional international 
terrorism into a new form of transnational, non-state warfare that 
resembles a form of global insurgency. This represents a new era of 
warfare. This report suggests to me that the battlefield for the war on 
terror is no longer limited to Iraq and Afghanistan. Indeed, while our 
military is tied down in Iraq and Afghanistan, the terrorists are 
expanding the battlefield throughout the world. How do you think the 
change in terrorist strategy should affect how we shape our military to 
deal with the security issues of the 21st century?
    Mr. Geren. The future strategic environment is one of persistent 
conflict, and requires an Army with the capabilities and capacities to 
meet these emerging challenges. For the foreseeable future, we will 
likely face threats from state and non-state actors/proxies who will 
seek to acquire and employ WMD, and challenge our advantages in space 
and cyberspace. The Army is restoring depth and building full spectrum 
capable forces while also improving our capabilities and capacities to 
conduct irregular warfare and to execute the Quadrennial Defense Review 
(QDR) strategy, including its force planning construct. Our forces are 
now conducting long-term counterinsurgency/irregular warfare (COIN/IW) 
operations, building partner capacity (BPC), and providing capabilities 
to protect the Homeland. We are improving our mobility, including high-
speed sealift. We are pursuing increased intelligence, surveillance and 
reconnaissance (ISR) capabilities and C\4\I interoperability (Command, 
Control, Communications, Computers, and Intelligence). We have also 
provided for increased Army Special Operations Forces (SOF) and 
improving the General Purpose Forces' (GPF) expeditionary capabilities, 
development of language and cultural awareness, and leader development. 
Even when the Army is task organized for non-lethal operations such as 
building partner capacity, we are able to achieve escalation dominance 
when required. We will continue our efforts to ensure that Army forces 
are trained and ready through the Army Force Generation (ARFORGEN) 
model and modular force conversions.

    34. Senator Akaka. Secretary Geren, since September 11, the United 
States has relied heavily on our military for prosecuting the war on 
terror. Our invasions of Afghanistan and Iraq have placed a heavy toll 
on the readiness of our military, and on the ability of the National 
Guard to provide disaster relief at home. In your opinion, has the war 
in Iraq been an effective and efficient use of taxpayer resources in 
fighting the global war on terror?
    Mr. Geren. In my view, the Army has responded to events of 
September 11 in an outstanding manner. The soldiers and families of our 
Army should be proud of their service and their accomplishments. We 
have the best led, trained, and equipped Army this Nation as ever 
produced. In this long war, our soldiers will continue to face many 
challenges and will continue to be prepared to answer the call to duty.

    35. Senator Akaka. Secretary Geren, what do you see as the function 
of law enforcement in protecting our Nation against terrorism versus 
the function of the military?
    Mr. Geren. The Posse Comitatus Act (title 18, U.S.C. section 1385) 
and DOD policy place limitations on direct involvement in law 
enforcement activities by military forces. Any deployment of DOD 
resources and domestic incident management actions during an actual or 
potential terrorist incident are conducted in coordination with the 
Department of Justice.

                         END STRENGTH INCREASE

    36. Senator Akaka. Secretary Geren, in your responses to the 
advance policy questions, you stated that the Army will be able to meet 
its fiscal year 2007 increased end strength without increasing its 
recruiting targets for the fiscal year. You said this is because the 
Army uses retention and loss management tools to manage end strength. 
You further indicated that attrition is at record lows. What has 
changed between last fiscal year and the current fiscal year that would 
allow the Army to substantially grow in end strength with no increase 
in recruiting?
    Mr. Geren. The Army has three levers at its disposal to manage 
strength: accessions, retention, and loss management. At the end of 
fiscal year 2006, we projected end strength of 513,000 for fiscal year 
2007. This forecast included 80,000 accessions, 62,000 in retention, 
and 74,000 total losses, with a 6-month attrition holding at 12 
percent. Additionally, total losses to date were approximately 2 
percent lower than fiscal year 2005.
    The current projection (as of end of month May 2007) is for a 
fiscal year 2007 end strength of 518,400 including stop loss. This 
increase is due to continued low attrition and a 5 percent increase in 
retention rate primarily due to the special expiration term of service 
bonuses currently offered. Additionally, more officers are being 
accessed into the Army Competitive Category.
    As a result of these management actions, the Army will be able to 
increase its end strength without increasing recruiting.

                         TRAINING REQUIREMENTS

    37. Senator Akaka. Secretary Geren, in your responses to the 
advance policy questions, you stated that ``no soldier will go into 
combat without the proper training and equipment.'' In order to meet 
the heavier deployment schedule, has the Army reduced or modified in 
any way the training requirements necessary to qualify as being fully 
trained for deployment? If so, when and why was this done, and how was 
the training modified?
    Mr. Geren. The Army remains committed to ensuring our soldiers are 
fully trained and ready to meet the challenges of the current operating 
environment. We continue to explore alternative training methods and 
strategies to provide the right training and education to our soldiers 
and meet commanders' needs. Training has been modified at all levels 
based on lessons learned from Operations Enduring Freedom (OEF) and 
Iraqi Freedom (OIF).
    The Army significantly modified enlisted Initial Entry Training 
(IET) to include more night, urban, and convoy operations in a field 
environment; and weapons and combat survival training. Warrior Tasks 
and Battle Drills (WTBD) was introduced in 2004 and allows soldiers to 
execute what they have learned through simulated warfighting 
environments. Other training modifications for IET soldiers include the 
implementation of Combat Lifesaver and weapons immersion training.
    All soldiers now conduct advanced rifle marksmanship training which 
provides the skills necessary to conduct short-range marksmanship in 
order to prepare them for the contemporary operating environment.
    Another training initiative is convoy live fire exercises. These 
exercises are conducted in order to train soldiers on weapons safety 
while on vehicles, weapons orientation, identifying IEDs, react to 
IEDs, control fires, fire distribution, ammunition control, and build 
overall soldier confidence.
    To accommodate units and their deployment schedules, the Army is 
making extensive use of mobile training teams (MTT) for the Basic 
Noncommissioned Officer Course and several functional training courses. 
MTTs travel home station units instead of having soldiers relocate to 
separate training bases. This provides soldiers pre-deployment training 
without having to leave their families before or after deployment.
    The U.S. Army Training and Doctrine Command is piloting a learning 
model focused on mid-grade professional military education with initial 
focus on the captains' career course. The model leverages use of 
technology, Saturday training, fast tracking, and Guided Experiential 
Learning (GEL). GEL is the instructional design and delivery strategy 
which ensures training will be at least as effective as existing 
instruction despite a reduction in training time. The Sergeants Major 
Academy is also piloting the effectiveness of GEL.

    38. Senator Akaka. Secretary Geren, has the Army made use of 
accelerated programs to speed troops, particularly new recruits, 
through training in time to meet unit deployment schedules? If so, how 
are these training programs used, how many troops have been trained 
through the accelerated program, and has the Army studied how soldiers 
who have undergone the accelerated training have performed in combat?
    Mr. Geren. The Army has adjusted courses at all levels to 
accelerate training in response to operational unit demands for 
personnel. For enlisted initial entry soldiers, two programs have been 
piloted within the past year. The first, ability group batching, is a 
process that accelerates select soldiers through Advanced Individual 
Training (AIT). Soldiers chosen for accelerated training may display 
strengths or more experience and education and it allows them to move 
to designated units as soon as they meet course standards. Ability 
group batching is being piloted at Forts Bliss, Jackson, and Lee. Fort 
Bliss accelerated one military occupational specialty (MOS) class by 2 
weeks and graduated 35 soldiers through this program. Fort Jackson's 
pilot accelerates 30 soldiers per class and reduces the course time 
from 12 weeks to 6 weeks. Fort Lee accelerated classes for 8 MOSs and 
to date has graduated 1,803 soldiers through this program. Ability 
group batching will not work with every MOS; MOSs with small numbers 
and infrequent starts will not benefit from this initiative. End of AIT 
course tests indicate these ability group batching graduates are as 
well trained as their due course counterparts.
    The second acceleration program for enlisted initial entry soldiers 
is Assignment Oriented Training (AOT). AOT is a training approach used 
primarily in AIT for those MOSs that can be assigned to different 
echelons/types of units. Soldiers are trained using courses tailored to 
the equipment and skill sets required for the first unit of assignment. 
Each course trains only those critical tasks required to be performed 
by the soldier for the specific echelon unit and its operational unique 
equipment/systems. Four MOSs are currently conducting AOT training and 
the Army is currently assessing additional MOSs for this program.
    Professional development training for noncommissioned officers and 
officers has been reduced through initiatives such as Saturday training 
and incorporating more technology-based instruction. Courses have been 
reduced in most cases by one-third of their original timeline. The Army 
continues to provide technically competent, fully trained and confident 
soldiers to the operational Army. Feedback during the most recent 
Warrior Task and Battle Drills review indicates operational units and 
veterans of OEF/OIF are satisfied with the quality of soldiers and 
leaders completing training.

    39. Senator Akaka. Secretary Geren, if the Army has studied the 
results of accelerated training, what were the results of the study?
    Mr. Geren. The Army is committed to providing operational units 
with trained and ready soldiers who can deploy, fight, and survive in 
today's contemporary operating environment. The Army has not conducted 
an all-inclusive effort to evaluate the effects of accelerated training 
initiatives; however, there are several pilot programs on accelerated 
training. One of these was conducted on AOT. AOT is a training method 
in which soldiers are trained only on those critical tasks required to 
be performed by the soldier at his/her first assignment. In 2005, the 
TRADOC Analysis Center (TRAC) completed Phase I of a study on AOT at 
the U.S. Army Signal Center and School. Results showed that, when 
assigned to correct units, AOT-trained soldiers arrived at units with 
the basics and were ready for unit training. TRAC begins the next phase 
of the study in October 2007.
    Another pilot the Army is conducting is ability-group batching in 
AIT. End of course testing in AIT shows that these soldiers are as 
well-trained as other soldiers who did not go through the pilots. 
However, it is clear ability-group batching is not suitable for all 
military occupational specialties, especially low-density courses.
    The Army Learning Model was analyzed at the July 2006 meeting of 
the Secretary of the Army's Distributed Learning/Training Technology 
Subcommittee and at the August 2006 Science of Learning Workshop 
sponsored by the Army Research Institute. The model is being evaluated 
for two Captains Career Courses in fiscal years 2007-2008; one at the 
Field Artillery School and one at the Signal School. The TRADOC 
Analysis Center is conducting the evaluations and will brief interim 
results in January 2008.
    TRADOC continually receives feedback from the operational Army to 
ensure institutional training meets their needs. This feedback from the 
field is continually derived through surveys, visits, lessons learned, 
and periodic assessments of training. Additionally, every school 
proponent ensures those soldiers graduating from accelerated training 
programs meet and complete all course requirements.
                                 ______
                                 
                Questions Submitted by Senator Evan Bayh

                     ARMY UNMANNED AERIAL VEHICLES

    40. Senator Bayh. Secretary Geren, please describe the Army's asset 
acquisition and operator training strategies for the Warrior unmanned 
aerial vehicle (UAV) program. Why did the Army end up selecting a model 
based on the MQ-1 Predator as opposed to developing a new platform?
    Mr. Geren.
Acquisition
    The U.S. Army is adhering to the Integrated Acquisition Framework 
and DOD 5000 series for development of the Sky Warrior--Extended Range/
Multi-Purpose (ER/MP) Unmanned Aircraft System (UAS) capability. Asset 
Acquisition (Materiel Development) is based on the Operational 
Requirement Document (ORD) which was published and approved by the 
Joint Requirements Oversight Council. The ORD specifies the threshold 
and objective requirements of the ER/MP system technical parameters 
needed for the field Army as per the Mission Needs Summary and 
Operations and Support Concept. The Army Project Manager-Unmanned 
Aircraft Systems (PM-UAS) is charged with program management of the 
system and will continue to meet acquisition milestones, as per DOD 
5000.2, throughout the program life cycle.
Operator Training
    The U.S. Army will have one single enlisted MOS for Tactical UAS. 
The training course program of instruction will include a Common Core, 
Reconnaissance, Surveillance, Target Acquisition, Imagery, Air Vehicle 
and Payload operations, Simulator and Flight training, and culminates 
with Warrior drills and Capstone collective field training exercises. 
Students will be administered Federal Aviation Administration (FAA) 
examinations at the conclusion of the common core tasks to earn FAA 
certificates. Students will be provided 40 hours of flight simulation 
prior to their first flight of any UAS to ensure proper operations and 
techniques are soundly trained.
Selection Process
    PM-UAS submitted a request for proposal (RFP) to industry in 
October 2004 via Federal Business Opportunities (FedBizOpps). Offerors 
from industry provided proposals within the timeline to the Government 
in accordance with the RFP addressing technical, program management, 
past performance, and cost estimates. The Government conducted a Source 
Selection Evaluation Board with a multi-disciplined team in two phases: 
Evaluation of ``paper'' proposals to screen to ensure ``Go/No-Go'' 
criteria was met and areas were rated as specified in the Source 
Selection Plan; and, offerors conducted a Systems Capabilities 
Demonstration to show the Government current system capabilities and 
performance. At conclusion of the Source Selection proceedings, the 
Army's Source Selection Authority made decision in favor of General 
Atomics-ASI to be the Army's future ER/MP.

    41. Senator Bayh. Secretary Geren, what advantages, if any, do you 
find inherent in using contractors and noncertified pilots as Warrior 
operators as opposed to the Air Force policy of using rated pilots?
    Mr. Geren. At present, the Army utilizes a combination of enlisted 
UAS MOS soldiers and contractors to operate our Warrior-A systems in 
Iraq. Our enlisted soldiers perform all Warrior-A cruise pilot 
functions and mission payload/sensor operations. Contractors purely 
land and take-off the air vehicle. However, the Army is in the process 
of training soldiers as take-off and landing pilots for the Warrior-A 
air vehicles. Upon deployment this fall, our Warrior-A platoon for 
CJTF-82, Afghanistan, will consist of pure military operations. 
Additionally, our Sky Warrior Program of Record UAS will include an 
automatic take-off and landing system, negating the requirement for 
take-off and landing trained military operators. The use of highly 
trained and qualified enlisted soldiers for Warrior-A and Sky Warrior 
UAS operations affords the Army a more efficient use of our force 
structure as 83 percent of the Army Aviation force structure are 
enlisted soldiers. Second, from a fiscal perspective, it is more cost 
effective to train existing enlisted soldiers to operate our UAS vice 
converting them to commissioned officers with the prerequisite officer 
training.

    42. Senator Bayh. Secretary Geren, what disadvantages were taken 
into consideration before moving ahead with this proposal?
    Mr. Geren. To date, the Army has trained over 6,000 enlisted 
soldiers to operate our UASs. Most of these soldiers have completed one 
if not multiple combat tours, making them experts in the safe 
employment of UAS in support of tactical combat operations. Our UAS 
enlisted MOS retention and recruitment is on track. UAS MOS initial 
term reenlistment is 70 percent while the Army average is 50 percent. 
Mid-term reenlistment for UAS MOSs is 74.5 percent, while the Army 
average is 75.9 percent. Career reenlistment is 85.7 percent while the 
Army average is 52 percent. To date, UAS recruitment for fiscal year 
2007 is at 79 percent, with 2 plus months remaining in the fiscal year 
to recruit 16 more UAS MOS soldiers. Our UAS training fully qualifies 
our enlisted soldiers to safely and effectively operate UAS within both 
the tactical and National Airspace Systems.

    43. Senator Bayh. Secretary Geren, where, in terms of an 
overarching DOD medium to high altitude UAV plan, does the Army see 
itself?
    Mr. Geren. Perhaps the best way to define where the Army sees 
itself is with an explanation of the definitions for UAVs as defined in 
the Joint Field Manual 3-04.15, ``UAS Multi-Service Tactics, 
Techniques, and Procedures for the Tactical Employment of UASs'', dated 
3 Aug 06. This document describes three classes of UAS: Manportable, 
Tactical, and Theater.

         Manportable UAS are small, self-contained, and portable. 
        Their use supports the small ground combat teams/elements in 
        the field. The Army's Raven UAS falls into this category. It is 
        hand-launched, soldier transported, and fielded to battalions 
        and smaller organizations. The Army's Future Combat System 
        (FCS) BCT will have its own manportable UAS, the Micro Air 
        Vehicle (MAV). The MAV will feature both ``hover and stare'' 
        and ``perch and stare'' capabilities made possible by its lift-
        augmented ducted fan propulsion system. This capability will 
        allow operation virtually anywhere, even in confined spaces.
         Tactical UAS are larger systems that support maneuver 
        commanders at various tactical levels of command and can 
        support the small combat teams when so employed and are locally 
        controlled and operated by a specialized UAS unit. The Army's 
        Shadow, IGNAT, Hunter, Warrior A, and ER/MP Warrior all fall 
        into this category. The FCS BCT will have its own tactical 
        rotary-wing UAS, the Firescout.
         Theater. The Army does not have any UAS that fall into this 
        category.

    In addition to these definitions, the Joint UAS Center of 
Excellence (JUAS COE) Concept of Operations (CONOPs), as endorsed by 
the Army during fiscal year 2007, defines three Tactical UAS. The Raven 
is considered a ``Tactical 1'' system by the JUAS COE CONOPs since it 
is hand-launched, soldier transported, and fielded to battalions and 
smaller organizations. The Shadow is defined as a ``Tactical 2'' system 
per the JUAS COE CONOPs since it is mobile-launched, vehicle 
transported, locally controlled and operated by a specialized UAS 
platoon within the BCT. The IGNAT, Hunter, Warrior A, and ER/MP Warrior 
are classed ``Tactical 3'' systems within the JUAS COE CONOPs since 
they are organic to the division, conventionally launched (rolling 
take-off) and primarily operated out of airfields. The FCS MAV is a 
Tactical 1 and the Firescout is a Tactical 2, in accordance with the 
JUAS COE CONOPs.
    In summation, in accordance with the above two Joint publications, 
the Army sees its medium altitude class of UASs being employed at the 
tactical level of operations.

    44. Senator Bayh. Secretary Geren, how will the lessons learned 
from the Air Force programs be evaluated for the Army's benefit?
    Mr. Geren. To benefit from Air Force, Marine Corps, and Navy UASs 
lessons learned, The Army works through the Joint UAS Center of 
Excellence (JUAS COE) for emerging CONOPs and Tactics, Techniques, and 
Procedures (TTPs), the Joint UAS Material Review Board for materiel 
related solutions and TTPs as well as the Joint Capabilities 
Integration and Development System for procurement. Additionally, the 
Center for Army Lessons Learned and Training and Doctrine Command 
validate, integrate, and transform Army and Joint operational lessons 
learned into requirements, doctrine, CONOPs, and TTPs. The UAS lessons 
learned from the Joint Force allows the Army to benefit and leverage 
their experience to provide soldiers, sailors, marines, and airmen the 
best possible UAS support on the battlefield.

    45. Senator Bayh. Secretary Geren, how will the Army's lessons 
learned impact future Navy and Air Force programs?
    Mr. Geren. The JUAS Materiel Review Board (MRB) remains the DOD's 
UAS forum to address materiel issues. Some of the objectives of the 
JUAS MRB include ``Facilitate Service-level coordination of UAS 
capabilities and potential future systems'' and ``Identify, resolve, 
and/or mitigate materiel issues at the earliest opportunity in the 
JCIDS process.'' Lessons learned through the acquisition of the Army's 
programs are briefed to the JUAS MRB to ensure all DOD and Service 
representatives have the most current information regarding materiel 
issues and lessons learned. There have been multiple Acquisition 
Project and Product Managers that have attended in the past providing 
information briefings of UAS developments and procurements. Lessons 
learned are shared with the Navy, Air Force, Marine Corps, and other 
DOD agencies and will be reviewed and considered in relation to their 
Service programs.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor

                          JOINT CARGO AIRCRAFT

    46. Senator Pryor. Secretary Geren, what is the Army requirement 
for the Joint Cargo Aircraft (JCA)?
    Mr. Geren. Each of the Services has title 10 responsibilities for 
providing direct support to their forces as outlined in Joint 
Publication 3-17 and defined in Technical Publication 525-4-0. For 
sustainment operations, Army fixed wing aviation perform those missions 
which are between the intra-theater missions performed by the Air Force 
and the tactical maneuver and movement performed by Army rotary wing, 
or ground assets. Army commanders deploy organic fixed wing assets to 
support routine sustainment and transport time-sensitive/mission-
critical parts, cargo, and/or personnel over strategic (inter-theater) 
and operational/tactical (intra-theater) distances to forward-deployed 
future forces in remote and austere locations. For the Army, the JCA 
fills the gap of time sensitive mission critical re-supply versus 
scheduled, bulk delivery by the Air Force. The JCA is procured to meet 
this requirement while transforming Army aviation, specifically the 
ARNG and the Army Reserve fixed-wing fleets to a more modern, capable 
force. Without transformation of the Army's legacy fixed-wing fleet, 
the Army will continue to pour funding into antiquated aircraft that 
provide limited value on the battlefield and fly the CH-47 helicopters 
on costly re-supply missions thus limiting the flexibility of the Joint 
Force Ground Component Commander.

    47. Senator Pryor. Secretary Geren, how will this aircraft's unique 
capability increase the mobility of soldiers in the battlefield?
    Mr. Geren. The Army's maneuver unit is the BCT which is a small 
modular, flexible force that is used independently on an asymmetrical 
battlefield, often in obscure locations. The JCA provides the ability 
for the BCT to meet the needs of the ever changing battle space. The 
JCA allows for a more effective movement of supplies with its 
transloadability to CH-47 Chinook cargo helicopters while also 
providing for more efficient resupply of mission critical/time-
sensitive items. With its ability to land on unimproved runways of 
2,000 feet or less in length and operate in high/hot conditions, such 
as Afghanistan, the JCA can deliver high priority supplies directly to 
the user. The JCA reduces the risk and burden to soldiers by minimizing 
the number of required ground convoys to resupply combat consumables, 
such as fuel, ammunition, and spare parts, throughout a high threat 
area of operations. The ability to resupply units is critical to 
maintaining combat readiness.

    48. Senator Pryor. Secretary Geren, do you believe the Army should 
operate the JCA independent of the Air Force? If so, why?
    Mr. Geren. Yes, the Army's primary mission is to operate the JCA in 
an independent, direct support role under the control of the Joint 
Force Commander (JFC). Its secondary role is to support the Air Force/
U.S. Transportation Command Common User Pool requirements. With both 
the Army and Air Force deploying the JCA, the JFC has more flexibility 
in meeting time sensitive as well as longer haul missions that don't 
require a larger aircraft such as the C-130. The JFC needs the ability 
to call on either the Army or Air Force to meet these key types of 
missions. The JCA is not a unique program to just the Army and Air 
Force. All Services have similar capabilities that exist in their 
Services from UH-60s, UAVs, C-130s, to watercraft. Additionally, each 
Service also relies on each other's joint training programs and 
maintenance for these assets, JCA will be no different. The bottom line 
is each Service has these capabilities to respond to their specific 
title 10 responsibilities to support their forces. The JCA program was 
vetted through the Joint Staff and DOD for its programmatics as well as 
for its roles and missions and Concept of Operations and will co-exist 
as complementary to the Air Force; which it will be used as a component 
of the overall intra-theater lift requirement.

                            STOP LOSS POLICY

    49. Senator Pryor. Secretary Geren, what is the Army's current stop 
loss policy?
    Mr. Geren. The Army's goal is to reduce the use of stop loss and 
eventually eliminate its use. However, current demands on the force 
require its use to provide trained and ready units to theater. Stop 
loss allows the Army to sustain a force that has trained together as a 
cohesive element, and maintain cohesion throughout its deployment. 
Losses caused by separation and retirement adversely impact unit 
training, cohesion, and stability in OIF and OEF deploying units. Stop 
loss allows the Army to maintain unit cohesion and effectiveness in 
combat. It is used sparingly, affecting only about 1 percent of the 
total force, for limited periods of time. This balances the need for 
unit effectiveness against the impact on individual soldiers. The 
desired result of implementing stop loss is to retain trained, 
experienced, and skilled manpower to ensure our formations, placed in 
harm's way, remain cohesive, ready, and combat-effective elements, 
throughout their deployment.
    There are two stop loss models currently being used in support of 
the Army's effort in the global war on terrorism.
    a. Active Army unit stop loss. Applicable to all regular Army 
soldiers assigned to organized Active Army units alerted or 
participating in OIF and OEF.
    b. Reserve component unit stop loss. Applicable to all Ready 
Reserve soldiers who are members of ARNG or United States Army Reserve 
assigned to Reserve component units alerted or mobilized in accordance 
with section 12302 or 12304, title 10, U.S.C. for participation in 
Operation Noble Eagle, OEF, and OIF.
    Current stop loss applicability: The current stop loss policy is 
minimalist by design and precisely implemented. The program only 
affects soldiers in units selected to participate in OIF/OEF, from the 
time of the unit's Mobilization/Latest Deployment Date minus 90 days 
and continues through the demobilization/redeployment date, plus a 
maximum of 90 days. The 90 days after return to the unit's permanent 
duty/demobilization station is used to provide our soldiers time for 
transition activities (separation and retirement), for medical 
screening, and where applicable for processing for a permanent change 
of station.
    As of end of month May 2007, stop loss affects a total of 8,540 
soldiers from all components (Active Army, 4,946; ARNG, 2,125; and Army 
Reserve, 1,469). The current DOD guidance is to eliminate the Army's 
use of stop loss as soon as operationally feasible. The Army still 
requires stop loss to meet mission requirements; however, the Army 
shares the Secretary of Defense goal and is using significant means to 
minimize the use of stop loss while ensuring units are fully manned and 
trained. The combination of various initiatives such as retention 
bonuses, stop movement, accelerated unit leveling, assignment incentive 
pay for deployment extensions, continued implementation of lifecycle 
managed units, and sufficient forces supports a 1:2 deployment cycle. 
The Army has reduced the total number of soldiers (all components) who 
are affected by stop loss from an average of 13,800 in 2005 to an 
average of 8,900 in 2007.

                         DEPLOYMENT EXTENSIONS

    50. Senator Pryor. Secretary Geren, what factors influenced your 
decision to extend deployments from 12 months to 15 months?
    Mr. Geren. As an Army, to meet the demands from Central Command 
(CENTCOM), we were forced with two ``bad'' choices: (1) continue with 
the then current policy of extending deployments on an ad hoc basis, 
with little or no notice, with the result that most soldiers were being 
extended; or (2) establish the 15-month policy that guaranteed a 12-
month dwell time.
    The better ``bad'' choice was the second. I recognize the heavy 
burden this adds to our soldiers and families and it is our goal to 
move back to 12-month deployments as soon as possible.

    51. Senator Pryor. Secretary Geren, what effect do you believe this 
new regulation will have on morale, not just for the soldiers but also 
for their families?
    Mr. Geren. I recognize that tour extensions have an adverse impact 
on soldiers and families and we are committed to providing appropriate 
levels of support that address the issues that arise. Additionally, our 
goal is to return to 12-month deployments as soon as circumstances in 
theater allow it. Based on the Army's response to the extensions of the 
172d Stryker Brigade, Fort Wainwright, Alaska, and the 1/34 BCT, 
Minnesota ARNG, the Army has applied a template of issues and 
solutions, for execution in support of soldiers and families impacted 
by the most recent unit extensions. Additionally, we continue to 
review, adapt, and fund programs and services specifically targeted at 
sustaining soldiers and families before, during, and after deployment. 
One of the Army's current seven key initiatives is focused exclusively 
on support for soldiers, civilians, and families as a key readiness 
factor.

    52. Senator Pryor. Secretary Geren, would you recommend an 
additional leave period be granted during this extension?
    Mr. Geren. The Under Secretary of Defense approved on July 13, 
2007, an increase in the rest and recuperation leave period from 15 
days to 18 days for servicemembers deployed to OEF or OIF for 15 
months.
                                 ______
                                 
               Questions Submitted by Senator John Warner

             TOUR OF DUTY ROTATION OF MEDICAL PRACTITIONERS

    53. Senator Warner. Secretary Geren, it has been reported that 
certain Army medical officer specialties, such as internal medicine and 
pediatrics, have been assigned 12- or even 15-month rotations in the 
CENTCOM area of responsibility, while other specialties, such as 
pulmonologists, are being assigned 6-month or shorter rotations. What 
is the Army policy on rotational deployment of Medical Corps officers?
    Mr. Geren. The Medical Corps officers deploying with BCTs serve for 
the length of the unit's deployment. Commanders and deputy commanders 
of deploying medical units serve for the length of the unit's 
deployment. Medical Corps officers, other than the commanders and 
deputy commanders, deploying to staff the area medical support units, 
Forward Support Surgical Teams, and Combat Support Hospitals, depending 
on their primary specialty, serve either 180 days or the length of the 
unit deployment.
    The U.S. Army Medical Command has identified 28 medical specialties 
that will serve on 180-day rotations. In general terms, those 28 
specialties require significant skills retraining when deployments 
exceed 180 days. That is because the specialists do not perform the 
full range of their specialty skills while deployed. Retraining that 
exceeds 1 month in duration is considered excessive. The impact of 
deployments beyond 180 days for those specialists represents an 
additional loss of those specialty providers for the period of their 
retraining. Examples of these specialties are cardiothoracic surgeons, 
gastroenterologists, and pediatric cardiologists. We expect the other 
11 medical specialties that deploy for longer periods of time to be 
performing more of the range of their skills while in theater. Examples 
of these specialties are psychiatrists, family practitioners, and 
emergency medicine physicians.
    Regardless of medical specialty, Graduate Medical Program directors 
will not be deployed for more than 90 days. This is related to the 
importance of the director's presence to run the Graduate Medical 
Education Program and to satisfy the requirements of the Residency 
Review Committee. The details of Medical Corps deployment length are 
published in the Army's Personnel Policy Guidance.

    54. Senator Warner. Secretary Geren, does that policy vary 
depending on medical specialty?
    Mr. Geren. Yes, the rotation policy varies based on duty position 
in theater and medical specialty. The policy identifies 28 Medical 
Corps Specialties that can deploy for no greater than 180 days and 11 
specialties that can deploy for 15 months.

    55. Senator Warner. Secretary Geren, can you provide an explanation 
and justification for any disparity and what policy decisions were 
taken into consideration?
    Mr. Geren. Army Medical Corps officers are initially trained as 
general/field medicine officers. Upon the completion of that training, 
they are further trained in one of 37 specialties. While the Military 
Healthcare System uses all these specialties to maintain a healthy 
deployable Army, general/field medicine officers are the physicians in 
greatest demand for operations in Iraq and Afghanistan. After the 
specialty demands for the theater are met, the other medical 
specialties are used to meet the theater demand for general/field 
medicine officers. We shortened the length of deployment for those 
medical specialties that would have the greatest skill degradation 
while deployed and those that would require significant retraining of 
skills upon redeployment. Those specialties for which a deployment 
greater than 6 months could be expected to require more than 30 days of 
retraining were limited to deployments not to exceed 180 days.

    56. Senator Warner. Secretary Geren, what actions are being taken 
to ensure fair and equitable rotations for all medical officers?
    Mr. Geren. There is an ongoing effort to ensure Medical Corps 
officers will have similar deployment experiences during the duration 
of the conflict. Initially, our efforts focused on ensuring that 
physicians were not sent back a second time to theater while there were 
other physicians in that specialty who had yet to deploy to theater. As 
we now are deploying the same physicians back to theater, commands are 
considering the number of months the physicians served in the combat 
zone and the number of months since their return from theater (dwell 
time). We make exceptions on repetitive deployments or on shortened 
dwell time for volunteers. We collect data on each physician, showing 
his/her individual deployment history. This data is readily available 
to all levels of command within the U.S. Army Medical Command and is 
used as a decisionmaking tool when scheduling physicians to deploy to 
theater.

                   RETENTION OF MEDICAL PRACTITIONERS

    57. Senator Warner. Secretary Geren, what are the current attrition 
and retention rates, broken down by specialty, in the medical officer 
ranks?
    Mr. Geren. The overall retention rate for Medical Corps officers in 
fiscal year 2006 was 60.69 percent. In fiscal year 2005 it was 54.42 
percent. Retention rates are computed based on physicians who remain on 
Active-Duty beyond their initial obligation date. A detailed breakdown 
by medical specialty is provided in the below chart. Our total losses 
for fiscal year 2006 were 402. 31.3 percent of those losses were to 
retirements, the remainder was either discharges or release from 
Active-Duty.

----------------------------------------------------------------------------------------------------------------
                                                                                       Fiscal Year Retention
                                                                                 -------------------------------
                      AOC                                 Medical Corps                2005            2006
                                                                                     (percent)       (percent)
----------------------------------------------------------------------------------------------------------------
60A...........................................  Operational Medicine............             N/A          100.00
60B...........................................  Nuclear Medicine Officer........           50.00            0.00
60C...........................................  Preventive Medicine Officer.....           83.33           77.78
60D...........................................  Occupational Medicine Officer...          100.00          100.00
60F...........................................  Pulmonary Disease Officer.......           66.67             N/A
60G...........................................  Gastroenterologist..............           33.33           37.50
60H...........................................  Cardiologist....................           66.67           60.00
60J...........................................  Obstetrician and Gynecologist...           66.67           46.15
60K...........................................  Urologist.......................          100.00           87.50
60L...........................................  Dermatologist...................           50.00           45.45
60M...........................................  Allergist, Clinical Immunologist          100.00           50.00
60N...........................................  Anesthesiologist................           14.29           70.00
60P...........................................  Pediatrician....................            9.09           46.67
60Q...........................................  Pediatric Subspecialist.........          100.00          100.00
60R...........................................  Child Neurologist...............             N/A             N/A
60S...........................................  Ophthalmologist.................          100.00           71.43
60T...........................................  Otolaryngologist................          100.00           66.67
60U...........................................  Child Psychiatrist..............          100.00           63.64
60V...........................................  Neurologist.....................            0.00           50.00
60W...........................................  Psychiatrist....................           50.00           57.14
61A...........................................  Nephrologist....................             N/A            0.00
61B...........................................  Oncologist/Hematologist.........           25.00           25.00
61C...........................................  Endocrinologist.................           50.00             N/A
61D...........................................  Rheumatologist..................           66.67            0.00
61E...........................................  Clinical Pharmacologist.........             N/A             N/A
61F...........................................  Internist.......................           68.00           50.00
61G...........................................  Infectious Disease Officer......          100.00          100.00
61H...........................................  Family Medicine.................           46.67           59.65
61J...........................................  General Surgeon.................           46.15           64.71
61K...........................................  Thoracic Surgeon................            0.00          100.00
61L...........................................  Plastic Surgeon.................           50.00          100.00
61M...........................................  Orthopedic Surgeon..............           77.78           62.50
61N...........................................  Flight Surgeon..................           25.00          100.00
61P...........................................  Physiatrist.....................          100.00           33.33
61Q...........................................  Radiation Oncologist............          100.00          100.00
61R...........................................  Diagnostic Radiologist..........           60.00           60.87
61U...........................................  Pathologist.....................           40.00           84.62
61W...........................................  Peripheral Vascular Surgeon.....             N/A          100.00
61Z...........................................  Neurosurgeon....................          100.00            0.00
62A...........................................  Emergency Medicine Physician....           40.00           50.00
62B...........................................  Field Surgeon...................           55.56           71.43
----------------------------------------------------------------------------------------------------------------
  Total                                                                                    54.42           60.69
----------------------------------------------------------------------------------------------------------------


    58. Senator Warner. Secretary Geren, have medical officers recently 
retired or resigned from service indicated a pattern of morale or 
deployment operation tempo as reasons for their leaving the Service?
    Mr. Geren. Yes, morale and deployment operation tempo have impacted 
on retention and retirement. Specific concerns raised by physicians in 
exit surveys have been categorized in four main areas:

          a. Prolonged deployments in excess of 6 months. Provider 
        consensus is that 6-month deployments (or shorter) would 
        significantly improve morale and retention.
          b. Obstacles to patient care. These obstacles include 
        problems with Armed Forces Health Longitudinal Technology 
        Application, the Department's computerized recordkeeping system 
        that increases physician administration time, takes time away 
        from patients, is not user friendly, and adds no significant 
        provider benefits; continued increases in administrative 
        requirements/training; and a shortage of physicians and support 
        staff, both military and civilian.
          c. Insufficient pay. Bonuses are not included in retirement 
        pay and entitlement bonuses have not changed since early 1990.
          d. Family stabilization.

                        ASYMMETRIC WARFARE GROUP

    59. Senator Warner. Secretary Geren, I commend the Army on its 
initiative to stand up an Asymmetric Warfare Group (AWG) to develop 
tactics, training, and procedures for future conflicts. I believe that 
this organization will benefit our military's endeavors as well in 
Afghanistan and Iraq. The AWG currently maintains a temporary 
headquarters and operations element in make-shift facilities at Fort 
Meade, MD, and a training unit at Fort A.P. Hill, VA, while the Army is 
in the process of determining a final location for the unit. While I 
realize the current situation is temporary, I am concerned that the 
potential scattering of elements among different installations will 
have a detrimental impact on the AWG's effectiveness, while at the same 
time being contrary to the Army's recent goals to consolidate missions 
and activities of a particular unit under one flag at one installation. 
If confirmed, what criteria will you use to determine a permanent 
location for this unit that will serve the best interests of the Army?
    Mr. Geren. At this time we are validating requirements and 
assessing potential locations. The Army will base the final 
recommendation upon three criteria groupings: operational, stationing, 
and cost analyses. The permanent location recommendation will represent 
the best of three criteria across the board. We will carefully consider 
all relevant factors.

    60. Senator Warner. Secretary Geren, in your opinion, what impact 
would the separation of command, operational, and training elements of 
this type of organization have on the efficiency and effectiveness of 
the unit?
    Mr. Geren. The AWG was designed as a decentralized organization 
capable of operating and sustaining itself in a decentralized mode. 
Nevertheless, the impact of separately located elements is one of the 
relevant factors to be considered in our decision.

    61. Senator Warner. Secretary Geren, I note with interest the 
Army's recent interaction with representatives of the local communities 
around the Pinon Canyon Maneuver Site in Colorado and the community's 
desire to enhance the economic benefit of supporting the Army's plans 
for the expansion of ranges and the control of encroachment around 
ranges. In your current role, is the Army taking into consideration the 
concerns of local communities in force structure basing and range 
expansion decisions involving training ranges?
    Mr. Geren. Yes. The Army views itself as a partner and good 
neighbor with the communities in which we live and depend upon, and 
should always be willing to listen to the concerns of nearby 
communities. The Army is presently preparing an Environmental Impact 
Statement for continued transformation and potential expansion of the 
Army. This process, conducted under the NEPA, requires consideration of 
a range of alternative installations for siting major Army units. The 
public plays an important role in identifying sites that should be 
considered before a final decision is made. The Army takes into account 
environmental and socio-economic factors, along with a whole host of 
other relevant factors, such as the types of units, ranges, and support 
facilities, prior to selecting an installation for home-basing and 
training a specific unit. Public comments and concerns raised during 
the NEPA review process allow the public to influence the final 
decision regarding site selection for major Army units, as well as for 
range expansion decisions involving training ranges.

    62. Senator Warner. Secretary Geren, if confirmed, what would you 
propose to address the concerns of local communities which take steps 
to control encroachment inconsistent with Army training requirements 
and which support increased range operations even at the expense of the 
community's economic development?
    Mr. Geren. Communities that take action to plan and limit economic 
development in order to protect the essential training of American 
soldiers are great friends of the Army. It demonstrates that 
communities and installations are working together and have recognized 
that poorly planned growth will neither support the long-term economic 
viability of the community, nor the continued economic viability of the 
installation.
    Some of the vital tools that are available to produce a correct 
economic analysis for the `growth versus encroachment' issue depend 
upon Congress' continued support of the OSD Office of Economic 
Adjustment's Joint Land Use Studies for communities around Army 
installations. Similarly, continued congressional support of the DOD 
Readiness and Environmental Protection Initiative is equally important. 
The Army calls our own program under this authority the Army Compatible 
Use Buffer Program. These programs are vital to community planning, and 
congressional funding of conservation or compatible use buffers around 
vital training, testing, and operating areas is essential to sustain 
military readiness, ecological integrity, and economic prosperity.
    In many cases, land use restrictions surrounding installations 
contribute to the long-term economic viability of local communities. 
Developing compatible land uses around Army installations does not 
preclude continued economic activity on conserved lands. For example, 
many Army installations are surrounded by agricultural farm and 
ranchlands. Farmers and ranchers are good neighbors and their 
operations do not adversely impact Army mission. Many farmers and 
ranchers want to stay on their lands, but there is much pressure to 
sell the land for commercial or residential development. Selling 
development rights while retaining all other rights on their property 
allows farmers and ranchers to receive payment for the development 
value of their property while providing for continued agricultural and 
other economic uses of their property. It represents a ``win-win'' 
outcome for both the Army and the local community.

    63. Senator Warner. Secretary Geren, in your opinion, who will make 
the final determination on the location of the AWG, and when is this 
decision expected to be made?
    Mr. Geren. The decision will be made in accordance with the 
applicable stationing policies and regulations. There is not a 
scheduled timeline for a decision. The Army will inform the community 
of interest prior to public notification. The Secretary of Defense 
retains the authority to station organizations within the National 
Capital Region.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                          FUTURE COMBAT SYSTEM

    64. Senator Inhofe. Secretary Geren, Iraq and Afghanistan have 
shown us that our ground forces still play a vital role in our national 
defense. We have seen the effectiveness as well as some of the 
limitations of our heavy armored vehicles. While we have added armor on 
our trucks and Humvees to give our troops more protection, the Services 
are looking to replace those vehicles with the Mine Resistant Ambush 
Protected (MRAP) vehicle. There is skepticism that the vehicles being 
fielded as part of FCS will not adequately protect our soldiers in the 
future. Can you tell us about the overall survivability capabilities of 
the FCS manned ground vehicles (MGVs) compared to the vehicles they 
will replace?
    Mr. Geren. The FCS MGVs are being designed to be able to counter 
current and future threats with the ability to upgrade protection as it 
is developed. The FCS MGVs will have far better protection over a 
number of older platforms including cannons, medical, reconnaissance, 
maintenance, and command vehicles they will replace. The MGV team is 
taking lessons learned from the Abrams Tank Urban Survival Kit program 
and Bradley Urban Operations Kit program and incorporating them into 
the MGV platforms. These survivability enhancements account for the 
MGV's additional weight growth; such as the use of kits for mine blast 
protection and the inclusion of active protective systems for rocket-
propelled grenade threats. Additionally, the MRAP vehicle program is 
currently exploring solutions to counter the Explosively Formed 
Penetrator (EFP) threat. When a suitable solution is available, the FCS 
BCT will incorporate EFP protection to FCS platform as a kitted 
solution.

    65. Senator Inhofe. Secretary Geren, what level of ballistic 
protection will they provide?
    Mr. Geren. The FCS MGV will provide 14.5 millimeter, 360-degree 
hemispheric protection, 30 millimeter protection over the frontal 60-
degree arc, as well as protection from rocket-propelled grenades, anti-
tank guided missiles, and high explosive/high-explosive anti-tank 
effects. As further armor protection solutions are developed, the 
platforms can be upgraded to meet future threats.

    66. Senator Inhofe. Secretary Geren, how do the other aspects of 
FCS help with making them more survivable?
    Mr. Geren. In addition to the FCS MGV's armor and other vehicle 
protection, the unmanned air and ground platforms, sensors and 
intelligence systems that support an FCS BCT will enable soldiers to 
avoid detection and avoid being hit--the soldiers will know what is 
around the next block or hill. The passing and sharing of data from 
sensors, UAVs, UGVs, unattended ground sensors, and other platforms is 
not relayed by a radio call but appears on the common operating picture 
screen inside the MGVs. This translates to passing and sharing real-
time data, not data or information that is passed through layers of 
relays. The FCS BCT deploys unmanned platforms forward first--to sense 
the battlefield--while gathering data and information that is instantly 
passed to all in the sector. Should an MGV receive fire, its active 
protection system reacts and removes the threat without damage to the 
system.

    67. Senator Inhofe. Secretary Geren, you stated that FCS is your 
number one modernization program but significant cuts have impacted the 
program. The Senate fully funds FCS in the National Defense 
Authorization Act for Fiscal Year 2008 report language and states in 
the Senate Report, ``it would be a critical mistake to abandon the 
Army's core modernization effort.'' What is the current status of FCS 
and its system of systems?
    Mr. Geren. Currently, the FCS BCT is on schedule and on budget. All 
planned engineering milestones to date have been met and successfully 
completed. The evaluation, production, and fielding of Spin Out 1 
capabilities are in process and will continue through 2008. Spin Out 1 
has all of the required program acquisition controls in place, and all 
systems within it are progressing through key engineering milestones.
    Significant accomplishments include:

         The Non-Line-of-Sight Mortar (NLOS-M) firing platform 
        completed its first iteration of testing at Camp Ripley, MN, in 
        April 2007, firing over 600 rounds in a little over 5 weeks 
        with no major faults. The results of the test demonstrated 
        NLOS-M is on the path to a superior fighting vehicle delivery 
        in 2011.
         The build-up of the integration test bed chassis is in 
        progress at the Power & Energy (P&E) Systems Integration Lab 
        (SIL) at BAE, Santa Clara, CA. The chassis is used for 
        integrating the complete propulsion system. The power pack 
        (engine/generator) set is already assembled in the sponson of 
        the test bed (similar to vehicle assembly). Evaluation of the 
        fully integrated propulsion system in the P&E SIL will begin on 
        August 15, 2007, and continue through November 2007, for 
        immediate work supporting NLOS-C early prototypes.
         The NLOS-C System Demonstrator fired more than 2,000 rounds 
        during 2005-2007 and the NLOS-C Firing Platform has fired more 
        than 270 of the scheduled 5,000 rounds since its delivery in 
        October 2006, to Yuma Proving Ground (YPG), Arizona. The 
        information and test data acquired through testing have been 
        incorporated into the threshold design of the NLOS-C pre-
        production prototype vehicles scheduled to begin arriving at 
        YPG for testing in the summer of 2008.
         In February 2007, the Army conducted the FCS Experiment 1.1, 
        where integration of sensors, soldiers, munitions, firing 
        platforms, and manned and unmanned aerial platforms in a 
        tactical scenario was successfully demonstrated at Fort Bliss, 
        TX. The experiment was a success, with over 160 Experiment 1.1 
        lessons learned captured. The participating soldiers praised 
        the FCS technologies, stating that they wished they could bring 
        them back to their units.

    68. Senator Inhofe. Secretary Geren, what impact would another 
budget cut have on FCS?
    Mr. Geren. The proposed House Armed Services Committee budget cuts 
would critically weaken the FCS BCT by causing a severe reduction in 
technologies and fielded platforms. This cut would terminate 90 percent 
of MGVs, 75 percent of Unmanned Ground Vehicles, 50 percent of Unmanned 
Aerial Systems, and 20 percent of the System of Systems Engineering 
effort required to integrate these systems in a network. A reduction in 
these systems will result in a loss of capability and the inability to 
meet requirements urgently needed by the soldier.
    FCS BCT fills a strategic role in Army modernization that no other 
unit in the military can fill. The goal of the FCS BCT is to be highly 
transportable, lethal, survivable, and maneuverable. Current heavy 
brigades lack the ability to deploy quickly, and light units lack the 
lethality and survivability inherent in the FCS BCT. The loss of FCS 
BCT or degradation of its technologies and capabilities will result in 
a significant reduction-in-force effectiveness for the United States in 
the future, especially as current forces continue to be used in ongoing 
operations and are worn out, damaged, and retired.
    Further, current forces are becoming aged, with outdated 
technologies and communications equipment. Retrofitting these vehicles 
may be prohibitively costly, or even not possible, given the weight, 
space, and power requirements. FCS has these capabilities designed in 
from the ground up. Another budget cut to FCS would remove most of 
these capabilities and force us to maintain the Cold War technologies 
for over 60-plus years, well beyond 2040.

                        NON-LINE-OF-SIGHT CANNON

    69. Senator Inhofe. Secretary Geren, when people ask about our Army 
cannon capability, I tell them the best thing we have is the World War 
II-era Paladin. The M109 Paladin, a 155mm howitzer, was introduced in 
the 1960s. It will remain the principle self-propelled Howitzer until 
the arrival of the FCS NLOS-C. What is the status of the initial 
prototypes of the FCS NLOS-C?
    Mr. Geren. The NLOS-C initial prototypes completed a design review 
in December 2006, and the first two systems are currently being 
assembled at FCS integration labs around the country with an expected 
delivery in May 2008. The NLOS-C initial prototype mission module is 
currently undergoing qualification and safety testing at Yuma Proving 
Ground from October 2006 through October 2008. As the first FCS MGV 
platform to mature, the Army intends to field the NLOS-C by fiscal year 
2010. This timeline allows the Army to meet congressional direction 
from section 8086 of the DOD Appropriations Act, 2007 (Public Law 109-
289).

    70. Senator Inhofe. Secretary Geren, are you on schedule to deliver 
all prototypes in 2008?
    Mr. Geren. Program Manager FCS will deliver five NLOS-C early 
prototypes by the end of calendar year 2008, based on the early 2006 
24-ton configuration. The remaining three systems to be delivered in 
calendar year 2009 will be based on the enhanced 27-ton configuration 
with improved armor, suspension, propulsion, and electronics.

                            TRAIN AND EQUIP

    71. Senator Inhofe. Secretary Geren, in your answers to the advance 
policy questions, you discuss the importance of building the capacity 
of our international partners and allies. You also discuss the 
importance of investing in partner nations who know the culture, 
language, and geography of our enemies. Section 1206 authorizes United 
States general purpose forces to train and equip foreign state military 
forces. What is your opinion of the current Section 1206 authority and 
its ability to, in your words, ``build the capacity of our 
international partners and allies?''
    Mr. Geren. The current provisions of Section 1206 of the 2007 
Defense Authorization Act, which expire annually, authorize the 
Secretary of Defense to spend up to $300 million to conduct such train 
and equip missions. DOD has requested that this authority be made 
permanent and that the spending authority be increased to $750 million 
per year.
    I support the concept and the request made by the Department. If we 
are to build partner capacity, it only logically follows that training 
and equipping will play a major role in achieving that end. It could be 
more effectively done under a 2-year authority to proceed since this 
would allow continuity of training and give us the ability to procure 
long lead time items. Clearly, the heart of the matter is the wisdom 
and effectiveness of the train and equip projects we actually 
undertake. The train and equip authority is, de facto, a tool that 
geographic combatant commanders can use to shape the strategic 
environment to America's benefit in their respective areas of 
responsibility. They nominate specific projects to be undertaken under 
the authority granted by Section 1206. The proposed projects are then 
reviewed by Joint Staff, Defense Department, and State Department 
staffs and approved by the Secretaries of State and Defense. The Army 
plays no direct role in this process; nevertheless, I have every 
confidence in my colleagues and rest assured that their work will lead 
to wise decisions. Army soldiers and civilians will be involved in 
carrying out a portion of the tasks arising from the approved train and 
equip projects. Here, too, I have every confidence that our soldiers 
and civilians will do a fine job.
    As is the case with any project we undertake, we must be mindful of 
the opportunity cost. The Army's soldiers currently carry a very heavy 
burden and we must be mindful of adding to that burden--after all, 
carrying out these missions will involve family separations while 
soldiers perform such training missions in foreign countries. 
Similarly, the authorization to allocate funds to such train and equip 
projects carried no appropriation with it; therefore, the Secretary 
must carefully weigh the costs and benefits involved when he decides to 
proceed with a 1206 project.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                             BRAIN INJURIES

    72. Senator Collins. Secretary Geren, one out of every 10 returning 
servicemembers are affected by TBI, which has been identified as the 
signature wound of the global war on terror. Bomb blasts are the most 
common cause of injury and death in Iraq. While improvements in body 
armor and protective gear have enabled our troops to survive attacks 
that once would have been deadly, they still do not fully protect 
against damage from blasts from roadside explosives or suicide bombers. 
As many as 28 percent of the 1.4 million troops who have served in Iraq 
and Afghanistan have been exposed to bomb blasts and may have suffered 
at least mild TBI. Sixty percent of the blast victims treated at Walter 
Reed have been diagnosed with mild, moderate, or severe TBI. These 
statistics, however, do not tell the whole story. While the evidence of 
brain injury may be dramatically clear in some cases, in others there 
may be no outward or visible evidence of trauma. It also can take days, 
weeks, and even months before the symptoms of TBI are readily apparent. 
As a consequence, mild or moderate TBI may go misdiagnosed or 
undetected, particularly if the servicemember has sustained more 
obvious injuries. Sadly, failure to accurately diagnose or treat TBI 
can result in frustration and an endless series of hardships for our 
returning veterans and their families. What specific measures do you 
support to help ensure that troops with TBI receive accurate diagnoses 
and care?
    Mr. Geren. We have published and exported the Military Acute 
Concussion Evaluation tool for use in theater; published clinical 
practice guidelines for acute management of mild TBI in military 
operational settings; and provided education for theater medics on 
acute evaluation of concussions. We are adding TBI specific questions 
to the Post Deployment Health Assessment (PDHA) that all soldiers 
complete upon returning from deployment. The TBI screen will be fully 
functional in July. If a soldier answers yes to a potential traumatic 
brain injury event like a fall, a motor vehicle accident, or being near 
an explosion, then an additional more detailed questionnaire will open 
and be reviewed by a clinician. Also, TBI specific questions have been 
added to the new Periodic Health Assessment (PHA). This tool will be 
used to catch up the entire Army by screening for TBI at the time of an 
annual health assessment. Concurrently, we are performing TBI screening 
for soldiers in theater following blast exposure even when no other 
wounds or injuries have occurred. To emphasize the importance and 
awareness of timely TBI care in those who are not obviously wounded or 
injured, an All Army activity message delineating the appropriate TBI 
evaluation and documentation was released on June 15, 2007. 
Additionally, all servicemembers medically evacuated through Landstuhl 
Regional Medical Center (LRMC) are screened for TBI if their condition 
permits. Since medically evacuated soldiers may not receive a PDHA 
prior to departing the combat theater or they may not be in a condition 
to be screened for TBI at LRMC, the acting Surgeon General has directed 
Medical Treatment Facility (MTF) commanders ensure that all OIF/OEF 
medically-evacuated soldiers receive or have received the following 
three evaluations: (1) the PDHA; (2) TBI screening and follow-up with a 
clinician if necessary; and (3) the Post Deployment Health Reassessment 
(PDHRA). In addition, we are deploying the Automated Neuropsychological 
Assessment Metrics, an Army-owned computer based neurocognitive 
assessment tool that has been used extensively in research and with the 
military. This instrument provides an objective assessment of cognitive 
performance that can be compared to military norms or the individual 
soldier's baseline test results. Pre- and post-deployment 
neurocognitive testing process was pilot tested at Fort Campbell on two 
groups of 80 deploying soldiers on June 11 and 20, 2007. Soldiers will 
be re-tested as part of the post-deployment medical processing. The 
Surgeon General recently stood up a proponency office to address health 
integration and rehabilitation. Our warriors with more severe TBI will 
continue to receive the same cutting edge medical care delivered every 
day at our military medical centers and at VA Polytrauma Centers. 
Furthermore, our MTFs are working with the Defense and Veterans Brain 
Injury Center to create a seamless TBI care network that provides the 
right level of care at the best location for every soldier.

    73. Senator Collins. Secretary Geren, another concern of mine is 
the personality disorder process and how it relates to PTSD and TBI. 
There are indications that personality disorder discharges are being 
used as a tool to quickly discharge servicemembers who have service-
connected mental health conditions, including PTSD and TBI. According 
to an article by Joshua Kors titled ``How Specialist Town Lost his 
Benefits'' (The Nation), Specialist Jon Town was injured and sustained 
major loss of hearing in a rocket attack in Ramadi, Iraq, in October 
2004. His injuries resulted in memory loss and depression, ending his 
military career. But instead of sending Specialist Town through the 
medical board process, the Army elected to give him a personality 
disorder discharge, depriving him of disability benefits and guaranteed 
VA care for his injuries. DOD records indicate that over 22,500 
personality disorder discharges have been processed within the past 6 
years. This is not a small number of individuals that supposedly had a 
pre-existing personality disorder. While this number is small in 
comparison to the overall discharge rate, misdiagnosis of potentially 
debilitating brain injuries and their impact on personnel once 
discharged is cause for concern. Consequently, I am concerned about the 
use, and potential misuse, of the personality disorder discharge. What 
is the process used by the Army to diagnose, if a servicemember has a 
personality disorder?
    Mr. Geren. If a soldier is referred by a commander to mental health 
for consideration for a personality disorder separation, a clinical 
evaluation of the soldier is performed. His or her psychiatric history 
is reviewed. The soldier's current symptoms and functioning are 
assessed. Information is also obtained from the unit, as to how the 
soldier is performing. In the vast majority of cases there have been 
significant performance difficulties that have led to the referral. 
Psychological testing may be done if there are diagnostic questions. 
Other collateral information may be obtained if needed. The soldier 
must meet the diagnostic criteria in Diagnostic and Statistical Manual 
for Mental Disorders (DSM-IV) for a personality disorder. In addition, 
other significant medical conditions should be excluded.
    We separate soldiers under Chapter 5-13 (Personality Disorder) only 
if the doctoral-level provider concludes the disorder is so severe that 
the soldier's ability to function effectively in the military 
environment is significantly impaired. This condition must be a deeply 
ingrained maladaptive pattern of behavior of long duration that 
interferes with the soldier's ability to perform duty (combat 
exhaustion and other acute situational maladjustments do not meet these 
criteria). The diagnosis of personality disorder must be established by 
a psychiatrist or doctoral-level clinical psychologist with necessary 
and appropriate professional credentials privileged to conduct DOD 
evaluations.
    In 2006, the Active Army discharged approximately 70,000 soldiers, 
yet only 1,086 received a Chapter 5-13 separation. The Army has 
averaged about 1,000 personality discharges per year since 1993.
    The recent focus on personality disorders has allowed us the 
opportunity to re-examine our procedures. We will review all cases 
where a previously deployed soldier has received a personality disorder 
discharge. We are also re-examining our internal review process. We 
encourage any soldier who believes that they were incorrectly 
discharged to appeal to the Army Discharge Review Board (ADRB). The 
Army Medical Command stands ready to provide the ADRB with behavioral 
health expertise as needed.

    74. Senator Collins. Secretary Geren, if such diagnosis is given, 
what criteria are used to determine whether or not the servicemember 
should be discharged?
    Mr. Geren. Army policy for administrative separation on grounds of 
personality disorder is not unilateral, but rather derives from 
governing DOD policy. The basis is a deeply ingrained maladaptive 
pattern of behavior of long duration, not amounting to physical 
disability, that interferes with the soldier's ability to perform duty. 
A key provision is that the diagnosis of personality disorder must be 
established by a psychiatrist or psychologist. Separation is authorized 
only if the diagnosis concludes that the personality disorder is so 
severe that the soldier's ability to function effectively in the 
military environment is significantly impaired (the criterion for 
separation). Based on the psychiatrist or psychologist diagnosis and 
conclusion, the soldier's unit commander initiates the separation 
proceedings and refers them to the separation authority, the special 
court-martial convening authority (Colonel). The Army Surgeon General 
has directed a review of all personality disorder discharges of OIF/OEF 
veterans be reviewed by behavioral health experts.

    75. Senator Collins. Secretary Geren, if a servicemember is 
discharged with a personality disorder, what effect does this have to 
the benefits they may receive as compared to someone who is diagnosed 
with either PTSD or TBI?
    Mr. Geren. Servicemembers determined unfit as a result of PTSD or 
TBI are either retired or separated for disability. If separated, the 
member gets 180 days of transitional health care. If retired, the 
member is eligible for TRICARE. There is no recoupment of any unearned 
portions of bonuses for separation or retirement for disability.
    Generally, a servicemember with 6 or more years of Active service 
who is administratively separated for a personality disorder would 
receive half separation pay and 180 days of transitional health care. 
In extraordinary instances, the Secretary may authorize full separation 
pay when the specific reasons for separation and the overall quality of 
the member's service have been such that denial would be clearly 
unjust. Separation pay is significantly less than disability severance 
pay. Unearned portion of any bonuses are recouped when a member is 
separated for personality disorder.

                        MENTAL HEALTH EDUCATION

    76. Senator Collins. Secretary Geren, in your response to the 
advance policy questions to this committee, you discussed the Mental 
Health Assessment Team IV (MHAT IV) studies and actions the Army is 
taking to ensure that appropriate numbers of mental health resources 
are available to soldiers in theater, as well as upon their return. You 
mentioned that next month the Army will roll out an extensive education 
program on PTSD and TBI. What will this education program consist of?
    Mr. Geren. The Army launched a Chain Teaching program on July 18, 
2007, as part of an aggressive campaign to educate more than 1 million 
Active, Reserve, and National Guard soldiers about PTSD and mild TBI. 
It is important to implement the Chain Teaching program to help us 
identify those needing care, and make available the best medical care 
we can provide. The Chain Teaching program is a Leaders Teaching 
Soldiers program and will be presented initially to leaders in the 
chain of command, who will then be responsible for presenting the 
training to the soldiers in their command. The goal is to launch the 
program Army-wide on July 18, 2007, and complete the training within 90 
days. All soldiers in the Active Army, ARNG, and Army Reserve are 
required to receive this training.
    Both mild TBI and PTSD (post combat stress) can have negative 
effects on a soldier's personal life, professional abilities, and 
health. Soldiers may be affected by one or both conditions at the same 
time and every soldier is entitled to help. These conditions are 
treatable and can improve significantly with the right care. All 
soldiers should watch themselves and their buddies for signs and 
symptoms of concussion or post combat stress.
    Leaders must be aware of their soldiers' conditions and needs, must 
support their soldiers in getting help, and must eliminate bureaucratic 
or organizational obstacles that interfere with soldiers' recovery. It 
is important for soldiers and family members to have an awareness of 
PTSD and mild TBI and to seek treatment for these conditions as soon as 
possible. For soldiers who may need temporary or long-term medical 
assistance, the Army and VA are prepared to provide them the best 
health care possible.

    77. Senator Collins. Secretary Geren, what are the goals you hope 
to accomplish with this program?
    Mr. Geren. I hope to increase awareness and improve care for TBI, 
PTSD, and other psychological effects of war. I also hope to diminish 
the stigma attached to mental health treatment and counseling. The 
Chain Teaching program will augment behavioral health assessment tools 
and measures already in place, and emphasize the Army's commitment to 
providing the best health care possible.

    78. Senator Collins. Secretary Geren, will the Army Guard and 
Reserve be included in this extensive education program?
    Mr. Geren. Yes, absolutely--the Army Guard and Reserve will receive 
the exact same education and training as the Active Force.

                        GUARD AND RESERVE FORCES

    79. Senator Collins. Secretary Geren, on several occasions, 
including your testimony to this committee, you emphasized that the 
National Guard and Reserves are no longer Strategic Reserves but are 
instead now Operational Reserves. You stated that the role of the 
National Guard and Reserves has changed from being a Strategic Reserve 
to part of the operational force and that the Army is a total force 
now. You train as one, fight as one, and, as a result, one third of the 
combat veterans from OIF and OEF come from the Guard and Reserve. I am 
concerned, however, that by making the National Guard and Reserves an 
operational force, we will not have the necessary Strategic Reserves 
available should the need arise in the future. Why do you think this 
change is beneficial to the Army?
    Mr. Geren. The operational force will meet any future challenges. 
The Army now uses Army Force Generation (ARFORGEN), a cyclic training 
and readiness process, which synchronizes strategic planning, 
prioritization, and resourcing. ARFORGEN fields available forces--
Active and Reserve component--to meet global demands and will prepare 
forces in the ready pool to deploy to meet any contingency 
requirements. With the Reserve component operating in the ARFORGEN 
model--1:4, we would in effect have a Strategic Reserve in the Reserve 
component units who are not in the ready pool, but would be available 
if full mobilization were necessary. With ARFORGEN and sufficient and 
timely funding, the Army will continue to field the best led, equipped, 
manned, and trained cohesive units for deployment at home and abroad.

    80. Senator Collins. Secretary Geren, what are the potential 
impacts this could have on our Nation's ability to surge during future 
conflicts?
    Mr. Geren. The Nation's ability to respond to future conflicts and 
disasters has improved with the reorientation of the ARNG and U.S. Army 
Reserve as Operational Reserve Forces. They will be more ready in terms 
of capacities, capabilities, and readiness as this change balances 
resources, programs, and policies to support both current operations 
and future force transformation. This methodology will ensure a 
continuity of the effort and a correct application of limited 
resources, while communicating current Army priorities to support the 
global war on terrorism and Army Campaign Plan objectives.
                                 ______
                                 
    [The nomination reference of Hon. Preston M. ``Pete'' Geren 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 24, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Preston M. Geren of Texas, to be Secretary of the Army, vice 
Francis J. Harvey, resigned.
                                 ______
                                 
    [The biographical sketch of Hon. Preston M. ``Pete'' Geren, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]

                 Biographical Sketch of Hon. Pete Geren

    Pete Geren assumed his duties as Acting Secretary of the Army March 
9, 2007, and will continue serving concurrently as the Under Secretary 
of the Army.
    As Acting Secretary of the Army, Mr. Geren has statutory 
responsibility for all matters relating to the United States Army: 
manpower, personnel, Reserve affairs, installations, environmental 
issues, weapons systems and equipment acquisition, communications, and 
financial management.
    Mr. Geren is responsible for the Department of the Army's annual 
budget and supplemental of over $200 billion. He leads a workforce of 
over 1 million Active-Duty, Army National Guard, and Army Reserve 
soldiers, 230,000 Department of the Army civilian employees, and 
280,000 contracted service personnel. He has stewardship over 15 
million acres of land.
    Mr. Geren has been serving as the 28th Under Secretary of the Army 
since February 21, 2006, following his nomination by President George 
W. Bush and confirmation by the United States Senate.
    Mr. Geren joined the Department pf Defense in September 2001 to 
serve as Special Assistant to the Secretary of Defense with 
responsibilities in the areas of interagency initiatives, legislative 
affairs, and special projects. Mr. Geren served as Acting Secretary of 
the Air Force from July to November 2005.
    Prior to joining the Department of Defense, Mr. Geren was an 
attorney and businessman in Fort Worth, Texas.
    From 1989 until his retirement in 1997, Mr. Geren was a Member of 
the U.S. Congress, representing the 12th Congressional District of 
Texas for four terms. He served on the Armed Services, Science and 
Technology, and Public Works and Transportation Committees during his 
tenure in Congress.
    Mr. Geren attended Georgia Tech from 1970-73 and received his BA 
from the University of Texas in 1974 and his JD from the University of 
Texas Law School in 1978.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Hon. Preston 
M. ``Pete'' Geren in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Preston ``Pete'' Murdoch Geren III.

    2. Position to which nominated:
    Secretary of the Army.

    3. Date of nomination:
    May 24, 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 29, 1952; Fort Worth, Texas.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Rebecca Ray Geren.

    7. Names and ages of children:
    Tracy Elizabeth Geren, 17; Sarah Anne Geren, 14; and Mary Caroline 
Geren, 10.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Georgia Tech, 1970-1973, no degree.
    University of Texas, B.A., 1974.
    University of Texas, J.D., 1978.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    March 9, 2007-Present - Acting Secretary of the Army.
    February 10, 2006-March 9, 2007 - Under Secretary of the Army.
    November 2005-February 20, 2007 - Special Assistant to the 
Secretary of Defense.
    July 2005-November 2005 - Acting Secretary of the Air Force.
    September 2001-July 2005 - Special Assistant to the Secretary of 
Defense.
    April 1999-August 2001 - Attorney, self-employed - 210 W. 6th 
Street, Fort Worth, Texas.
    January 1997-April 1999 - Management Consultant, Public Strategies, 
Inc., 2421 Westport Parkway, Fort Worth, Texas.
    September 1989-January 1997 - Member of Congress, 12th 
Congressional District of Texas.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    D/FW International Airport - Board of Directors, 1999-2001.
    Executive Assistant to Senator Lloyd Bentsen, 1983-1985.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    See SF-278 and Ethics Agreement.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Honorary Member, Rotary Club of Fort Worth.
    Member, Exchange Club of Fort Worth.
    Member, State Bar of Texas.
    Member, Fort Worth Club.
    Member, City Club of Fort Worth.
    Member, Rivercrest Country Club.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Candidate for U.S. Congress: 1986, 1988, 1990, 1992, 1994.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    January 5, 2001, Presidential Inaugural Committee, $475.
    February 19, 2001, Jim Lane for City Council, $100.
    February 26, 2001, Wendy Davis for City Council, $100.
    March 20, 2001, Martin Frost for Congress, $250.
    March 21, 2001, Frank Moss for City Council, $100.
    March 22, 2001, Granger for Congress, $250.
    April 25, 2001, Dionne Bagsby for County Commissioner, $150.
    June 25, 2001, Blunt for Congress, $500.
    October 8, 2003, Charlie Geren for State Representative, $1,000.
    December 16, 2003, Friends of the University of Texas PAC, $500.
    April 15, 2004, Koehler for School Board, $250.
    April 25, 2005, Carter Burdette for City Council, $100.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Honorary PhD University of North Texas.
    Outstanding Young University of Texas Alumnus.
    Distinguished Alumnus, University of Texas Law School.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None, other than newsletter-type material when I was in Congress. I 
do not have copies.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Pentagon Flag Retreat Ceremony--Museum of American History.
    Eulogy for Sonny Montgomery Funeral.
    WRAMC Staff Address.
    AUSA ILW Breakfast.
    AUSA Army Civilian Luncheon.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify before any duly constituted 
committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                       Peter Geren.
    This 1st day of June, 2007.

    [The nomination of Hon. Preston ``Pete'' M. Geren was 
reported to the Senate by Chairman Levin on June 26, 2007, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on July 13, 2007.]


  NOMINATIONS OF ADM MICHAEL G. MULLEN, USN, FOR REAPPOINTMENT TO THE 
 GRADE OF ADMIRAL AND TO BE CHAIRMAN OF THE JOINT CHIEFS OF STAFF; AND 
   GEN. JAMES E. CARTWRIGHT, USMC, FOR REAPPOINTMENT TO THE GRADE OF 
      GENERAL AND TO BE VICE CHAIRMAN OF THE JOINT CHIEFS OF STAFF

                              ----------                              


                         TUESDAY, JULY 31, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, 
Lieberman, Reed, Bill Nelson, E. Benjamin Nelson, Clinton, 
Pryor, Webb, McCaskill, Warner, Inhofe, Sessions, Collins, 
Chambliss, Graham, Dole, Cornyn, Thune, Martinez, and Corker.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Daniel J. Cox, Jr., professional staff member; Madelyn R. 
Creedon, counsel; Evelyn N. Farkas, professional staff member; 
Creighton Greene, professional staff member; Michael J. Kuiken, 
professional staff member; Gerald J. Leeling, counsel; Peter K. 
Levine, general counsel; Michael J. Noblet, research assistant; 
and William K. Sutey, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Gregory T. Kiley, professional staff member; 
Derek J. Maurer, minority counsel; David M. Morriss, minority 
counsel; Lucian L. Niemeyer, professional staff member; 
Christopher J. Paul, professional staff member; Lynn F. Rusten, 
professional staff member; Sean G. Stackley, professional staff 
member; Kristine L. Svinicki, professional staff member; Diana 
G. Tabler, professional staff member; and Richard F. Walsh, 
minority counsel.
    Staff assistants present: Fletcher L. Cork and Kevin A. 
Cronin.
    Committee members' assistants present: Sharon L. Waxman and 
Jay Maroney, assistants to Senator Kennedy; Frederick M. 
Downey, assistant to Senator Lieberman; Christopher Caple, 
assistant to Senator Bill Nelson; Andrew R. Vanlandingham, 
assistant to Senator Ben Nelson; Jon Davey and Dahlia Reed, 
assistants to Senator Bayh; Andrew Shapiro, assistant to 
Senator Clinton; M. Bradford Foley, assistant to Senator Pryor; 
Gordon I. Peterson, assistant to Senator Webb; Stephen C. 
Hedger, assistant to Senator McCaskill; Sandra Luff, assistant 
to Senator Warner; Anthony J. Lazarski, assistant to Senator 
Inhofe; Lenwood Landrum and Todd Stiefler, assistants to 
Senator Sessions; Mark J. Winter, assistant to Senator Collins; 
Clyde A. Taylor IV, assistant to Senator Chambliss; Andrew 
King, assistant to Senator Graham; Lindsey Neas, assistant to 
Senator Dole; Stuart C. Mallory, assistant to Senator Thune; 
John L. Goetchius and Brian W. Walsh, assistants to Senator 
Martinez; and Bradford T. Sellers, assistant to Senator Corker.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    Today we welcome Admiral Michael Mullen, the President's 
nominee to be Chairman of the Joint Chiefs of Staff (JCS), and 
General James Cartwright, the nominee to be Vice Chairman of 
the Joint Chiefs of Staff. We congratulate both of you on your 
exceptional careers, we thank you for your willingness to 
continue to serve.
    We also appreciate the support of your families. We all 
know that the positions to which you have been nominated 
require, not only hard work and a devotion to public service, 
but also the support of your family.
    If confirmed by the Senate, our two nominees will face 
extraordinary challenges in the coming years. First and 
foremost, the next Chairman and Vice Chairman will be called 
upon to work with the senior civilian leadership within the 
Department of Defense (DOD), the National Security Council, and 
the President to address the ongoing crisis in Iraq.
    Despite the loss of more than 3,600 of America's best and 
bravest, despite 7 times that many wounded, and an expenditure 
of $600 billion to date, and $10 billion more each month, Iraq 
remains torn by sectarian strife, an unreliable police force, 
and the Intelligence Community has recently reported to have 
concluded that the years of our occupation of Iraq have seen a 
surge of al Qaeda in Iraq.
    Secretary Gates has stated that our troops are buying the 
Iraqis time, to pursue reconciliation. Unfortunately, while our 
troops have done everything that is asked of them, and more, 
the Iraqi political leaders remain frozen by their own history, 
unwilling to take political risks to reach the compromises so 
essential to a constructive settlement of their national 
problems.
    The State Department reported to Congress last Thursday 
that, ``Iraq's parliament in recent months has been at a 
standstill, with nearly every session since November adjourned, 
because as few as 65 of the 275 members made it to work.'' They 
wrote that, ``Part of the problem is security, but Iraqi 
officials also said they feared that members were losing 
confidence in the institution, and in the country's fragile 
democracy.''
    The President continues to call for patience. But the 
American people long ago lost patience with the failure of the 
Iraqi leaders to do what everybody agrees needs to be done, if 
success can come to Iraq. They must compromise their political 
differences.
    The American people want a change in course in Iraq, not 
the continuation of a status quo, without a plan to force the 
Iraqi leaders to take responsibility for their own country. 
Giving the Iraqi political leaders more time to work out 
agreements over resource sharing, power sharing, and 
constitutional amendments isn't the plan, particularly in the 
absence of consequences for their failure to do so.
    Iraq is not the only challenge that the next Chairman and 
Vice Chairman will face. Our senior military leadership also 
faces a resurgent Taliban in Afghanistan, an al Qaeda operating 
from safe havens in the Pakistan federally-administered tribal 
areas; an unpredictable nuclear power in North Korea; an Iran 
that seems to be aggressively pursuing nuclear weapons, and 
causing problems throughout the region; an Army and Marine 
Corps in need of tens of billions of dollars to replace and 
repair equipment that has been damaged and destroyed in the 
course of ongoing operations; the military's nondeployed ground 
forces, that have a low level of readiness to meet any wartime 
mission; weapons programs that despite the expenditure of more 
than $100 billion a year, are increasingly unaffordable; a 
military that faces constant challenge in recruiting the troops 
that it needs; and men and women in uniform and their families 
suffering from the increased strains of repeated deployments, 
and a sustained high operational tempo.
    Indeed, our ground forces are being stretched near the 
breaking point, our Army and Marine Corps have attempted in 
vain to stabilize rotational schemes for an unstable and open-
ended Iraq strategy. Deployments have become longer and longer, 
while goals for breaks between deployments have gone unmet.
    The leaders who will address these problems will need more 
than the total commitment and hard work that they bring to the 
job, and that we've come to expect from our military leaders. 
We rely on our military leaders to provide independent military 
advice to the President, the National Security Council, the 
Secretary of Defense, and Congress. Too often, the voices of 
our military leaders have been muted, by senior administration 
officials, and some have told those civilian leaders what they 
wanted to hear, instead of providing them with the unvarnished 
facts that they really needed.
    If our military is going to overcome the challenges that it 
faces today, the new Chairman and Vice Chairman will have to be 
willing to speak up forcefully and directly to their civilian 
leaders, to speak the truth as they see it, to power.
    Today's nominees are outstanding individuals, with 
exceptional military backgrounds. If confirmed, they will be 
assuming their positions as the most senior military leaders of 
our Nation, responsible for the welfare and safety of all 
America's military forces who are not only brave, but are also 
true professionals; all that this or any other nation could 
hope for. That is an awesome responsibility, but I believe that 
our nominees are more than up to the task.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Mr. Chairman, I wonder if we might 
recognize Senator Inhofe for a minute. He has to go to the 
Environment and Public Works (EPW) Committee where he's a 
ranking member.
    Chairman Levin. Senator Inhofe.
    Senator Inhofe. Thank you, I'll make this very brief.
    First of all, I'm in total support of the two outstanding 
nominees here, and I look forward to working with you.
    I will say this, Mr. Chairman, that I do agree with the 
position that we really are stressed right now, in terms of 
resources, assets, and force strength. All during the drawdown 
of the 1990s, I was on the Senate floor saying that this day 
would come, and this day is here.
    But I want to say to both of you that after my 14th trip 
over there, to the Iraqi area of responsibility, I came back 
seeing incredible progress in terms of the Imams, the Clerics, 
and the positive attitude of those individuals who are the 
citizens, and the things that the Iraqis are doing, I just 
thought that was great. I've read things that you folks have 
said, similar to this.
    The best news was, on the other side, two of the most 
severe critics in the New York Times came back from a lengthy 
period of time over there, and agree with virtually everything 
that you two have said about the progress that's taking place 
right now.
    So, I congratulate you.
    I thank you, Senator Warner. We do have the markup in the 
EPW, and I have to attend that.
    Senator Warner. You have my proxy?
    Senator Inhofe. Yes, sir.
    Senator Warner. Mr. Chairman, I wonder if we might, as a 
committee, also recognize the newest member of the committee, 
Senator Corker. We're delighted to have you, and that you 
selected to come on this committee, where I hope that you will 
move from that chair slowly down to this chair. It took 29 
years for us, didn't it? [Laughter.]
    Chairman Levin. I'm not sure if the emphasis is on ``move'' 
or on ``slowly'' though. [Laughter.]
    We do welcome you, very much. Senator Warner speaks for 
everybody on this committee, and we join him in a very warm 
welcome.
    Senator Warner. Mr. Chairman, I join you in welcoming 
Admiral Mullen and General Cartwright, and I wonder if you 
might introduce your families to those in attendance here?
    Admiral Mullen. Certainly, Senator.
    My wife Debra is here, sitting behind me.
    Chairman Levin. Yes.
    Admiral Mullen. My two sons who are both Active-Duty Navy 
lieutenants, are not here today.
    Senator Warner. But they're on Active-Duty, and accountable 
this morning, somewhere.
    Admiral Mullen. Yes, sir.
    Chairman Levin. General Cartwright?
    General Cartwright. Senator, my wife Sandy is sitting 
behind me. Our oldest daughter, Billie Ann, is next to her. Her 
husband is a member of the West Virginia National Guard, 2nd 
Battalion, 9th Special Forces Group, and just recently returned 
from his third combat tour.
    Chairman Levin. Third combat tour.
    General Cartwright. Our youngest daughter, who's not here, 
and her husband are assigned in Europe, under the Defense 
Intelligence Agency, one to the North Atlantic Treaty 
Organization (NATO), and one to the Army.
    Senator Warner. Total contribution to our Nation's security 
by your families. You exemplify so many military families all 
across America.
    I want to take a moment, Mr. Chairman, and I'm sure you 
share with this me, to recognize that you two gentlemen replace 
extraordinary officers who have served their country long and 
well.
    Admiral Edmund Giambastiani, former Vice Chairman of the 
Joint Chiefs, retired last week after 37 years of naval 
service, and a remarkable career, including service as 
Commander of Submarine Force, Atlantic Fleet, and other 
submarine capabilities, but most importantly, surviving Admiral 
Hyman Rickover, who I knew, and who was a magnificent trainer 
of young men in our submarine forces.
    I shall always remember Admiral Giambastiani, his total 
availability, certainly to this Senator and other Senators, at 
any time--day or night--to respond to inquiries, and other 
problems that I had with the Department.
    Admiral Mullen, you'll be relieving General Peter Pace, the 
first United States Marine to serve as Chairman of the Joint 
Chiefs of Staff. General Pace had no less distinguished career, 
including service as the Vice Chairman of the Joint Chiefs of 
Staff, and as Commander of U.S. Southern Command. He recently 
marked 40 years of commissioned service that began with combat 
in Vietnam.
    You, likewise, Admiral Mullen, were aboard ship during the 
days of Vietnam, my recollection.
    Admiral Mullen. Yes, sir.
    Senator Warner. I suspect in fulfilling this career, you'll 
be almost the last person on Active-Duty to have served in the 
Vietnam conflict.
    I congratulate you and your family.
    Admiral Mullen. Thank you, sir.
    Senator Warner. I've heard General Pace speak very movingly 
about the debt he felt, always, to the young marines under his 
command, wherever they might have been, though, especially in 
Vietnam. Most deeply to those whose families made the ultimate 
sacrifice.
    I would say, without any equivocation, that General Pace 
fulfilled that promise, and he has honored all of those who 
have served with him.
    We thank General Pace, Admiral Giambastiani, and their 
families, for their service.
    Admiral, you and I have had a very interesting and 
wonderful professional relationship for many years.
    General Cartwright, likewise. I've had the opportunity to 
get to know you and your family. Knowing you both as I do, 
however, I believe it's your individual dedication to duty, 
integrity, and accountability, as well as your experience that 
have brought you to this day, and this hearing. I intend to 
support both of you. I encourage my colleagues to do likewise.
    There will be many questions about operations in Iraq 
during the course of this hearing, and that's the way it should 
be. I'd like, however, to focus on the question, as we move 
forward, on the readiness of the Armed Forces, and ensuring the 
continued success of the All-Volunteer Force.
    I've had--literally--a lifetime association with the 
concept of the All-Volunteer Force. As you'll recall, Admiral 
Mullen, during the days of Vietnam, we had the draft. While 
those that were drafted served honorably, today is an All-
Volunteer Force. It's probably the most bold experiment that 
any military had ever tried, particularly in the wake of the 
Vietnam War, but it has worked. It has succeeded beyond our 
expectations. Now you two gentlemen become the trustees of what 
I hope will be the continuation of the All-Volunteer Force 
concept, as we meet the requirements of the military today, and 
the years in the future.
    Our Active-Duty and Reserve military personnel have 
performed heroically since the attacks of September 11, 2001. 
They have the respect and the gratitude of every member of this 
committee, but more importantly, they have the respect and the 
gratitude of Americans from coast to coast.
    But our All-Volunteer Forces, particularly our ground 
forces, have been on a wartime footing for 4 years. I know you 
have your concerns, as I do, about the ability of these forces 
to continue to recruit, to continue to replenish, reinforce, 
and continue this tempo of operations, certainly over the next 
6 to 12 months.
    The men and women in the Armed Forces, and their families, 
have humbled this Nation with their dedication to duty, and the 
sacrifices that they have made. Despite the admiration to which 
men and women in uniform are held today, however, there is this 
concern about the ability of our recruiters, for example, to 
replenish the force for the families of our military personnel 
to continue to bear the burdens of the ongoing military tempo.
    Many of the legislative initiatives taken by this 
committee, under my leadership as chairman, and now our 
distinguished colleague, my friend from Michigan--we've done 
that, to bring forward those programs that we feel can help you 
to do that job of keeping this All-Volunteer Force strong.
    You both started your careers prior to 1973, and spent a 
substantial part of those careers ensuring the success of our 
professional forces. We have every confidence that the two of 
you can do the same in the course of your respective jobs 
coming up.
    Thank you very much.
    Chairman Levin. Thank you, Senator Warner.
    Senator Warner. I'd like to put in a statement on behalf of 
Senator McCain, who was not able to be with us this morning.
    Chairman Levin. Of course. That statement will be made part 
of the record.
    [The prepared statement of Senator McCain follows:]

               Prepared Statement by Senator John McCain

    I extend my congratulations to Admiral Mullen and General 
Cartwright on their nominations for the two most senior positions in 
the Armed Forces, that of Chairman and Vice Chairman of the Joint 
Chiefs of Staff and I thank them for their continued service to our 
Nation.
    Each of these officers has an impressive record of achievement--
Admiral Mullen as a Surface Warfare Officer, and General Cartwright as 
a Marine Aviator. Their joint duty assignments and senior leadership 
experience combined with their deep knowledge and understanding of the 
Armed Forces make them uniquely qualified to serve as the principal 
advisers to the President, National Security Council, and Secretary of 
Defense.
    If confirmed, they will be installed during one of the most 
challenging times in our Nation's national security history. We have 
been involved in a violent struggle against the forces of militant 
extremists since al Qaeda terrorists killed Americans on September 11. 
Now we are fighting extremists in Iraq, Afghanistan, and other spots 
across the world. While the struggle is currently centered in Iraq and 
Afghanistan, we must be prepared and postured to successfully defend 
our Nation and its interests around the globe for years to come.
    Let me turn briefly to Iraq. We have made a great many mistakes in 
this war, and both Baghdad and Washington remain divided about how to 
correct them. There are no easy choices in Iraq, and the temptation is 
to wash our hands of this messy situation. To follow this impulse, 
however, would portend catastrophe. Withdrawing before there is a 
stable and legitimate Iraqi authority would turn Iraq into a failed 
state and a terrorist sanctuary, in the heart of the Middle East. We 
have seen a failed state emerge after U.S. disengagement once before, 
and it cost us terribly. In pre-September 11 Afghanistan, terrorists 
found sanctuary to train and plan attacks with impunity. We cannot make 
this fatal mistake again.
    It is clear that the overall strategy that General Petraeus has put 
into place, based on a traditional counterinsurgency strategy that 
emphasizes protecting the population--and which gets our troops off of 
the bases and into the areas they are trying to protect--is the correct 
strategy. Some of my colleagues argue that we should return troops to 
the forward operating bases and confine their activities to training 
and targeted counterterrorism operations. That is precisely what we did 
for three and a half years and the situation in Iraq only got worse. No 
one can be certain whether this new strategy, which remains in the 
early stages, can bring about ever greater stability. We can be sure, 
however, that terminating this strategy as it is just commencing will 
result in certain failure.
    In an op-ed piece in the New York Times yesterday, Kenneth Pollack 
and Michael O'Hanlon addressed security progress that they witnessed 
during a recent visit to Iraq. They call upon Congress to sustain this 
effort and not force a precipitous withdrawal. I have attached their 
op-ed to my statement for inclusion in the record.
    I would like to thank our nominees and their families for their 
service and look forward to their speedy confirmation by the Senate. I 
also wish to state my appreciation to General Pace and Admiral 
Giambastiani for their years of service. They have my best wishes for 
the future.
    Above all, I want to recognize the men and women of our Armed 
Forces and their selfless efforts throughout the world. Their task is 
anything but easy. They have served multiple tours in combat zones and 
in difficult assignments around the globe. They do so with courage, 
determination, and skill that leaves us in awe. The success of our 
Armed Forces begins with the individual servicemember and we are 
eternally grateful for their willingness to serve our Nation, and the 
support provided by members of their families.

    Chairman Levin. Admiral Mullen?

 STATEMENT OF ADM MICHAEL G. MULLEN, USN, FOR REAPPOINTMENT TO 
THE GRADE OF ADMIRAL AND TO BE CHAIRMAN OF THE JOINT CHIEFS OF 
                             STAFF

    Admiral Mullen. Mr. Chairman, Senator Warner, and 
distinguished members of the committee, good morning, and thank 
you for the opportunity to be here with General Cartwright, as 
you consider our nominations for Chairman and Vice Chairman of 
the Joint Chiefs of Staff.
    I appreciate your time and all of the support this 
committee provides our brave men and women, and their families. 
I'm also grateful to the President, and to the Secretary of 
Defense, for their confidence in me. I appreciate the love and 
support of my wife, Debra, here with me, and that of our two 
sons, Jack and Michael, both of whom serve on Active-Duty in 
the Navy.
    Finally, I'm thankful for the opportunity and privilege to 
continue to serve.
    Should you confirm me, please know that for the soldiers, 
sailors, airmen, and marines, and their families, who have--and 
are--performing so nobly, and sacrificing so much, I will 
represent them with the full measure of my effort. To listen, 
to learn, and to lead.
    Mr. Chairman, I realize the war in Iraq weighs heavily on 
your mind, as it does on the minds of the people of this great 
country. It weighs heavily on mine. In a moment I will share 
some thoughts about that conflict, but before I do, let me 
outline what I believe will be my three overarching challenges 
as we look into the future.
    The first challenge is the defense of our national 
interests in the Middle East. Iraq and Afghanistan, for sure, 
the Israeli/Palestinian conflict, Sunni/Shia rivalries, the 
rise of Islamic militants, the resurgence of al Qaeda, 
Lebanon--all threaten to tear at fragile seams, and all bear 
directly on the safety of the United States.
    I'm especially concerned about the increasingly hostile 
role played by Iran. I support diplomatic efforts to counter 
Iran's destabilizing behavior, and hope their leaders will 
choose to act responsibly. But, I find their support for 
terrorism, and their nuclear ambitions deeply troubling.
    My second challenge will be resetting, reconstituting, and 
revitalizing our Armed Forces, particularly the ground forces. 
There is strain. We are stretched. Though recruiting and 
retention figures, in general, remain good, and morale is still 
high, I do not take for granted the service of our people or 
their families, and I worry about the toll this pace of 
operations is taking on them, our equipment, and on our ability 
to respond to other crises and contingencies.
    I'm committed to achieving a two-to-one troop rotation as 
soon as possible. I'm committed to making sure our wounded 
warriors come home to the very best medical treatment possible, 
in the very best medical facilities we can provide. I'm 
committed to providing the equipment they need, specifically, 
and urgently right now, more Mine Resistant Ambush Protected 
vehicles quickly to the fight. To make sure broken equipment 
gets fixed, and worn-out equipment gets replaced faster.
    The U.S. military remains the strongest in all the world, 
but it is not unbreakable. Force reset, in all its forms, 
cannot wait until the war in Iraq is over.
    My third challenge is the proper balancing of strategic 
risks for the future. Current operational commitments are 
creating significant demands on the force. I worry, that with 
all of the focus on Iraq, which is certainly appropriate, the 
Nation might lapse into complacency about our still-mounting 
global responsibilities. The longer, larger war on terror--and 
I believe it is a long war--will likely take our troops to 
places we do not now foresee, and will demand of them skills 
they may not yet possess.
    At the same time, we must stay ready to deter, if possible, 
and defeat, if necessary, threats from regional powers who 
possess conventional and, in some cases--in some cases--nuclear 
capabilities.
    How we stay engaged around the world--which we must do--how 
we build and maintain partnerships--which we must do--will 
largely determine our ability over the long-term to do so for 
the Nation all that it expects of us. We must rebalance our 
strategic risks carefully, and as soon as possible.
    Let me now turn to Iraq, for you have a right to know where 
I stand. I believe the surge is giving our operational 
commanders the forces they needed to execute more effective 
tactics, and improve security. That is happening. Security is 
better. Not great, but better.
    I believe security is critical to providing the Government 
of Iraq the breathing space it needs to work toward political 
national reconciliation and economic growth, which are 
themselves, critical to a stable Iraq. Barring that, no amount 
of troops, in no amount of time, will make much of a 
difference.
    I look forward, as I know you do, to hearing from 
Ambassador Ryan Crocker and General David Petraeus in 
September. I believe prudence dictates that we plan for an 
eventual drawdown, and the transition of responsibilities to 
Iraqi security forces, and we need to do that wisely.
    I understand the frustration over the war, I share it. But 
I am convinced that, because security in Iraq is tied to 
security in the region, and because security in the region 
bears directly on our own national security, we must consider 
our next moves very carefully.
    The Joint Chiefs are completing our own assessment. I plan 
to, again, visit the theater myself in the near future to 
better understand conditions on the ground. We are a military 
at war, Mr. Chairman, and war is ugly, messy, and painful. Our 
troops are fighting with honor. They are sacrificing bravely 
and greatly, sometimes with their own lives.
    Two short weeks ago, I pinned a silver star on a young man, 
a Navy SEAL, who risked his life to save that of a comrade. I'm 
inspired by the opportunity, the privilege, to continue to lead 
men and women of our Armed Forces through what will surely be, 
beyond Iraq, a protracted campaign that will define the quality 
of American life for generations to come.
    Whatever our tasking may be in the future, we are obliged 
to the American people to defend them and their interests. To 
make sure we are ready in every way, across every military 
mission, to do their bidding. We must be able to win both wars, 
and the peace that follows.
    Should you confirm me as the next Chairman of the Joint 
Chiefs of Staff, you'll have my unmitigated and unwavering 
dedication to that task. Thank you.
    Chairman Levin. Admiral, thank you so much.
    General Cartwright?

STATEMENT OF GEN. JAMES E. CARTWRIGHT, USMC, FOR REAPPOINTMENT 
 TO THE GRADE OF GENERAL AND TO BE VICE CHAIRMAN OF THE JOINT 
                        CHIEFS OF STAFF

    General Cartwright. It's an honor to come before you today 
for this confirmation hearing. I want to express my sincere 
thanks to you, Mr. Chairman and Senator Warner, for your prompt 
consideration of this nomination, especially given the other 
pressing demands before this committee.
    Also, to the members of the committee with whom I've met 
over the past several days, for taking the time to discuss the 
position, and my nomination.
    Mr. Chairman, I am truly honored to be nominated by the 
President for the position of Vice Chairman of the Joint Chiefs 
of Staff. I am a marine. I took an oath to serve my country 
when I joined the Service, and it's been a privilege to serve 
soldiers, sailors, airmen, and marines for nearly 4 decades. It 
is an honor to be considered for this position, it represents a 
major personal challenge, and I'm humbled by the responsibility 
it entails.
    If confirmed, I will provide my straightforward, candid, 
professional advice. I look forward to answering any questions 
you have of me today, and, if confirmed, a continuing dialogue 
with this committee.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you so much, General Cartwright.
    Let me begin by asking you both the standard questions that 
we ask of our nominees, and you can both answer at the same 
time, if you would.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Admiral Mullen. Yes, sir.
    General Cartwright. I have.
    Chairman Levin. Have you assumed any duties, or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Admiral Mullen. No, sir.
    General Cartwright. No, sir.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    Admiral Mullen. Yes, sir.
    General Cartwright. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Admiral Mullen. Yes, sir.
    General Cartwright. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Admiral Mullen. Yes, sir.
    General Cartwright. Yes, sir.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request, before this committee?
    Admiral Mullen. Yes, sir.
    General Cartwright. Yes, sir.
    Chairman Levin. Do you agree to give your personal views, 
when asked before this committee to do so, even if those views 
differ from the administration in power?
    Admiral Mullen. Yes, sir.
    General Cartwright. Yes, sir.
    Chairman Levin. Do you agree to provide documents--
including copies of electronic forms of communication--in a 
timely manner when requested by a duly-constituted committee, 
or to consult with the committee regarding the basis for any 
good faith delay or denial in providing such documents?
    Admiral Mullen. Yes, sir.
    General Cartwright. Yes, sir.
    Chairman Levin. Thank you.
    We'll have an 8-minute first round for questions.
    Admiral, do you agree--given the purpose of the surge, 
which is to give the Iraqi Government what you and the 
President call ``breathing space'' to make the political 
compromises needed for reconciliation and a political 
settlement--that there's been very little, or no, progress in 
terms of political settlements?
    Admiral Mullen. Yes sir, I agree there does not appear to 
be much political progress.
    Chairman Levin. Do you agree--I think your statement made 
this clear--but let me ask you directly, that without a 
political settlement or a coming together and reconciling 
differences, that there is little, or no, hope of ending the 
violence in Iraq?
    Admiral Mullen. Mr. Chairman, in my statement, I try to be 
very focused on this, that security is absolutely necessary to 
provide the opportunity for the political center of gravity, in 
Iraq, which is the political movement on the part of that 
government. That needs to happen. Clearly, the space is being 
created, and the political environment in Iraq, and that 
government needs to move forward.
    Chairman Levin. As you put it, no amount of troops can 
solve their political problems for them?
    Admiral Mullen. Over time, no sir, I don't believe they 
can.
    Chairman Levin. Now, assuming that there is a continuing 
failure of the Iraqi political leaders to reach a political 
settlement, there's going to be a range of options that we're 
going to need to look at. Because you've said that the failure 
to achieve tangible progress towards reconciliation will 
require a strategic reassessment. Give us the range of options 
that you think need to be considered, if September comes along, 
and there's still no political progress. Start from, at one 
end, an announcement that we're going to begin to reduce 
troops, starting at a particular time, transitioning to a more 
limited mission on the one hand, and on the other hand, 
continuing the surge as it currently is. What options lie 
between those that you believe need to be considered if this 
failure of the Iraqi leaders continues?
    Admiral Mullen. I think it's very important, Mr. Chairman, 
as I indicated to get to September, and I'm very anxious to 
hear, in particular, what Ambassador Crocker and General 
Petraeus have to say. I have not spent time on the ground 
lately, and I think it's vital that we hear what they have to 
say, particularly with respect to the progress in the areas of 
politics and economics, which are lagging in security.
    Chairman Levin. If the report is that there's continued 
failure in that area, what do you view as the options that 
should be considered?
    Admiral Mullen. I think over time the options are--on the 
one hand, to continue the mission as it's described, which is 
basically a security mission, mostly with the United States in 
the lead, turning it over to the Iraqis in time. We are doing 
some of that now--but mostly the operation that's occurring 
right now is with the U.S. in the lead--at a level, from a 
security standpoint, not to exceed the 15-12 rotation numbers 
that Secretary Gates has laid out there. Because I'm very 
concerned about exceeding that would start to break on the 
Armed Forces. It gets to Senator Warner's point, which is, 
longer-term preservation of the All-Volunteer Force, which I 
think is vital.
    A second option would be to start to turn over the security 
mission to the Iraqi security forces more rapidly--basically, 
put them in the lead as quickly as possible, and as they were 
able to provide for that security, start to transition our 
forces out to a lower level.
    A third option, on the other end, would be to just move out 
as soon as possible--and, in that second option, and actually 
in the first two options--I think it's important that we 
sustain a capability to fight al Qaeda. That we not let Iraq 
implode, from an overall security standpoint, and that in this 
transition, we give the Iraqis an opportunity to both lead--
from a security standpoint--as well as politically.
    The third option would be to do it expeditiously. By 
expeditiously, I mean, at the other end of the pole--move out 
rapidly, and just bring troops home as rapidly as possible. 
With what I understand right now, I would caution against that, 
at this point. Because I am concerned about that kind of rapid 
withdrawal, and what it might mean--not just for Iraq, but what 
it would mean in the whole region.
    Chairman Levin. Thank you.
    Admiral, Secretary Gates has often expressed support for 
open debate in Congress on Iraq, and he said that, for 
instance, the debate here on the Hill, in terms of reduction of 
forces in Iraq, changing course in Iraq, was useful in terms of 
letting the Iraqis fully understand the impatience here at 
home, and the importance of their getting on with their 
domestic reconciliation, and the importance of political 
reconciliation to the success of the enterprise in Iraq. Do you 
agree with Secretary Gates' statements about the importance and 
value of the debate here on the Hill, in terms of putting 
pressure on the Iraqi leaders?
    Admiral Mullen. Yes, sir, I agree that the debate is 
important, it is valuable, and that it certainly could put 
pressure on the Iraqis, to see exactly what we're doing.
    Chairman Levin. Is that pressure on them useful?
    Admiral Mullen. If I were to measure that by the amount of 
political progress, thus far, I think it's useful from our 
perspective, I'm not sure it's had the impact some of us would 
expect it to have, in terms of them moving forward politically, 
and some of the other areas, but particularly politically.
    Chairman Levin. Is it desirable that they feel pressure to 
reach political settlement?
    Admiral Mullen. I think we need to bring as much pressure 
on them as we possibly can.
    Chairman Levin. Admiral, you've indicated in your pre-
hearing questions that we should continue our strong support 
for local police units in al Anbar Province, and other areas. 
Have you seen press reports that indicate that our support for 
those units--particularly those Sunni units in al Anbar 
Province--that the Iraqi Government has not agreed to that 
concept? Disagrees with the arming of the--particularly Sunni--
police in al Anbar? Have you seen those press reports?
    Admiral Mullen. I have seen, I think, one report to that 
effect, within the last week.
    Chairman Levin. Does that create a caution in your mind, 
that if trying to provide security in one area creates a 
problem in terms of the Iraqi political leaders, particularly 
the Prime Minister of Iraq, disagreeing with it, that we could 
be--in a sense--making a political reconciliation more 
difficult?
    Admiral Mullen. What I've learned--particularly the Middle 
East--is that we need to be mindful that when we make a move, 
there can be unintended consequences--good and bad--associated 
with that. We just need to be mindful of that as much as we 
can, ahead of time, before a move is made.
    In this particular area, I have a tremendous amount of 
respect for David Petraeus and for Ryan Crocker. At this point, 
it's really over to them. They clearly are in favor of this. In 
addition to the political reconciliation in Baghdad, at the 
head of government level, there is an important level of 
political reconciliation which needs to take place in the 
villages, in the tribes, on the ground. So I certainly think 
that's going to be a very important connection to make, as 
well.
    Clearly, that is starting in al Anbar. The leadership in al 
Anbar in recent months has gotten fed up with al Qaeda, and 
it's been that combination of both the security we've provided, 
and the leadership that is provided in the tribal areas that 
has started to turn that around. I would, at this point, 
certainly not push back on that. That doesn't mean the alarm 
bell that may be going off in Baghdad, with the Government, 
isn't a valid alarm.
    Chairman Levin. My time is up. [Recess.]
    We appreciate your patience during that interruption, and 
we will now call on Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    I'd like to follow up on the chairman's dialogue on the 
importance of your leadership, as it relates to this most 
complex situation facing us in Iraq.
    I'm always one to go back and study history. I just want to 
step back to November 2006. The chairman and I had come back 
from Iraq at that time, and we both gave our respective views, 
and I indicated that Iraq was, in my judgment, aimlessly 
sliding sideways. We are coupled up to go back again, here, 
very shortly on another trip.
    But on that November 30, 2006, President Bush and Prime 
Minister Maliki made a joint statement, following their meeting 
in Amman, Jordan. I want to quote that statement: ``The Prime 
Minister confirms the commitment of his government to advance 
efforts towards national reconciliation and the need for all 
Iraqis, and political forces in Iraq, to work against armed 
elements responsible for violence and intimidation.''
    Now, moving to January 10, 2007, when President Bush 
addressed the Nation with his new strategy, following a series 
of studies performed in the administration, the Joint Staff 
made a contribution--you remember that period very well Admiral 
Mullen, you were part of that.
    Admiral Mullen. Yes, sir.
    Senator Warner. There were consultations with Congress. The 
President made that rather dramatic statement on January 10 
about the military surge that was required, in his judgment, 
augmentation of forces, to bring about what he and Prime 
Minister Maliki agreed upon, in November, in Amman, Jordan.
    In his January 10 statement, again, he said, ``If the Iraqi 
Government does not follow through on its promises, it will 
lose the support of the American people, and it will lose the 
support of the Iraqi people. Now is the time to act. The Prime 
Minister understands this.''
    Yesterday, the Iraq parliament adjourned without passing 
any laws. You have answered in the advance questions, your own 
candid assessments, and you've discussed them this morning.
    So, we're faced with what I view now, is a surge of our 
military forces, working with the Iraqi forces, and I think 
credit should be given to the Iraqi forces, as having performed 
in a credible manner, in their partnership of the two military 
organizations, to perform the surge. If we see evidence, coming 
forward now--as you indicated in your opening statement--of 
success data points in the surge--not total, but indications.
    The surge is moving forward, successfully. But the Maliki 
Government is sliding backwards, and is failing in the 
partnership that was established as the predicate, the 
foundation, for the surge concept of January 10.
    Now, you are faced with that. You have to sort this out. My 
first question to you--what would be the consequences if 
America failed to achieve that degree of stability for the 
Iraqi people, who have voted for, and achieved, sovereignty. I 
don't look upon this as achieving victory--just achieving a 
security so that the Iraqi people can fully exercise a range of 
sovereignty, and hopefully that nation will join other nations 
in that region.
    Now, given that, what are the consequences if this program 
fails? Right now, it is a measure of failure. The military 
going forward, the central government going backwards. What are 
the consequences, or is it perceived that we, the United 
States, have failed to bring about that level of security, and 
maintained it so the government can take its place in the 
world?
    Admiral Mullen. I think the principal consequence that 
would concern me most is the stability in the region. Which is 
why, when I asked about possible alternatives, and I know 
everybody understands this, but I think we need to reemphasize 
it, we must move in a measured fashion.
    One of the reasons I supported the surge, was because I 
felt that it was very important to change the calculus. There 
were questions out there that were unanswered, about will more 
troops make a difference? Can we provide this security? Can we 
take that issue off the table to focus more specifically on the 
other legs of the stool--the economy, and the political aspect 
of this.
    Clearly, it has given us an opportunity to do that. In our 
moves in the future, I think, we need to be mindful of that, as 
well. To be sure, as we move, that if the calculus changes, 
that we can see, clearly, what we should do, and do so in a 
measured way.
    I worry a lot about moves that would turn Iraq into a 
cauldron, and I think that would be--not just bad for the 
people of Iraq, not just bad for the people of America--but for 
our vital interests in that part of the world.
    Senator Warner. What about the consequences to the 
economies of the world, about an unpredictable energy source in 
that region?
    Admiral Mullen. Yes, sir.
    Senator Warner. Sixty percent of the known oil reserves--
I'm not talking just about Iraq--are in that region. If there's 
instability there, that would have direct consequences on the 
world economy.
    Admiral Mullen. Vital interests certainly include 
sustaining stability in that part of the world. Specifically, 
resources and oil. Both near-term and long-term is the al Qaeda 
threat, which we must continue to address that we don't put 
Iraq in a position where their neighbors are emboldened, and 
could move in. That's why I would argue strongly for measured 
moves, that we clearly understand the risks.
    Senator Warner. We have to address the consequences in 
Iran.
    Admiral Mullen. Yes, sir.
    Senator Warner. Iran developing a nuclear capability, and 
weaponry. The Palestinian conflict, the security of Israel--it 
all is tied together.
    Admiral Mullen. Yes sir, it is.
    Senator Warner. We can't look at Iraq in isolation, do you 
agree with that?
    Admiral Mullen. I agree with that, yes, sir.
    Senator Warner. General Cartwright, let's look in the 
situation of this surge forward and the government backwards. 
The troops today are smart, and they follow these things. They 
recognize that they were called into this battle in this surge, 
on the predicate there would be this partnership, between the 
Maliki Government, and our President, and the coalition forces, 
to succeed.
    How do you think that the troops accept their challenge to 
lose life and limb, to carry out their orders, when they see 
the other half of the partnership is absolutely failing?
    They communicate with their home base, they read 
newspapers. They're as current on affairs as we are.
    General Cartwright. Senator, they are smart. They are aware 
of their surroundings, and they are aware of the objectives 
that have been set in front of them--both the military 
objectives, and the objectives to bring the government and the 
economy into a more favorable vector.
    They believe in their mission, they're going to do their 
best to provide the head room--if we use that term--to allow 
that government the opportunity. But, there comes a point at 
which they're going to look at that, and say, ``How much 
longer? For what price?'' if progress isn't seen.
    Senator Warner. Right.
    Finally, I say to both of you--Congress in its 
appropriations bill, had language, the language started in this 
committee, to create an independent analysis of the Iraqi 
security forces under your former colleague, General James 
Jones, Commandant of the Marine Corps and our most recent NATO 
Commander. That is up and running quite successfully, I've 
worked with them. General Jones put together a team of a dozen 
or so retired admirals, two police chiefs, and they're looking 
at the viability of the Iraqi security forces today, and what 
they'll look like tomorrow, and in the immediate future.
    To his credit, Secretary Gates, I went to talk with him, 
has given them tremendous support, to go into Iraq, where 
they've just completed a weeks' study, they intend to return. I 
hope that we can receive the commitment from both of you that 
you will support that entity--the independent study--as 
established by Congress in the appropriations bill, to go 
forward and make that analysis.
    Admiral Mullen. Yes, sir. I spoke with General Jones before 
he went, and basically just reviewed with him what he expected 
to do. I have not spoken with him since his trip, and certainly 
there's no one I have more personal respect for than Jim Jones. 
I've served for him, and with him, so I'm sure that he will put 
together a very valuable insight into what's going on with the 
Iraqi security forces.
    Senator Warner. That will be available in that timeframe 
that you focused on so carefully in your testimony--early 
September.
    Admiral Mullen. Yes, sir.
    Senator Warner. You, likewise? He'll need support from time 
to time, logistically, and so forth. That will be forthcoming, 
then, from the JCS?
    General Cartwright. Yes, sir. I will support him. I have 
met with him since he has returned, to ensure that I understand 
the scope of his mission, and we will work to ensure that he 
gets the tools he needs to conduct that independent analysis.
    Senator Warner. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Warner.
    Admiral, we also, in terms of giving us assurance, the 
assessment that you referred to that the Joint Chiefs are 
performing, I assume, would also be made available to this 
committee?
    Admiral Mullen. That assessment, Mr. Chairman, is part of 
the internal deliberations in the tank to support advice to the 
President. Certainly, if brought forward to discuss that, I'd 
be happy to talk very frankly about my participation in that.
    Chairman Levin. Thank you.
    Senator Kennedy.
    Senator Kennedy. I join in welcoming you, Admiral Mullen 
and General Cartwright. Admiral Mullen has extraordinary 
experience--seven command tours, and his experience has been 
broad, deep, and really, extremely impressive. You've been 
dedicated to the Navy, the Nation's security, and we thank you 
for your professionalism, and quite frankly, thank you for your 
honesty and candor, and thoughtfulness in response to the 
questions that have come here today.
    On that Joint Chiefs' assessment--I have my own assessment, 
along with the chairman--as I understand, that will be 
available to the President, but not to Congress? Is that going 
to be in early September, as well?
    Admiral Mullen. That assessment is really their internal 
deliberations, tied to advice both to the Secretary of Defense 
and the President of the United States.
    Senator Kennedy. But your understanding, that's going to be 
in a timely way to be there at the time when the General----
    Admiral Mullen. We expect to do that in continence with all 
other activities in September.
    Senator Kennedy. I thank you, Admiral, and I listened 
carefully to your response about the cauldron in Iraq. I 
believe, quite frankly, we're in a cauldron at the present 
time, I'm not sure that the continued presence of American 
troops is useful and helpful in dampening down the kinds of 
intensity of the violence that we're seeing over there at this 
period of time. I think you've stated very clearly the range of 
considerations, but we read that National Intelligence Estimate 
(NIE) report, it is--as described--a situation where Americans 
are constantly getting caught in the crossfires.
    General Cartwright, I think you remind us with your own 
background and experience of the extraordinary bravery and 
courage of the service men and women, and they've been over 
there 4 years. I'm always reminded, having brothers who served 
in World War II, that war lasted a considerably shorter period 
of time than this has lasted in a country of 28 million people, 
and a country that we, basically, scorched 10 years ago. They 
had a third-rate military kind of an operation, and we have our 
men and women that are suffering and dying there, longer than 
we fought in World War II, and they deserve the best policy. 
For the very reasons that you've outlined--because of their 
courage and their bravery. That's what many of us are 
interested--as both of you are--in attempting to do.
    Admiral Mullen, I'm concerned about when the President 
announced the surge--he talked about security, he talked about 
the opportunity for political reconciliation and 
reconstruction. I think that most of us understand that on 
those issues, the political reconciliation, we haven't seen 
much evidence of, the conflict has continued, and the 
reconstruction program has been hardly much to mention at all.
    The issue that is very much before the American people is 
the timeliness of, when is this judgment, and when your 
decision is going to be made? You've outlined different 
alternatives now. We had in January, when this surge was 
started, Secretary Gates said, it was viewed as a temporary 
surge. In February, Secretary Gates told the Senate 
Appropriations Committee, ``I think General Petraeus believes 
he'll have a pretty good idea of whether this surge is working, 
probably by early summer.'' In April, Secretary Gates told us 
more time would be needed. I think its been General Petraeus 
view all along, sometime, at some point, during the summer, 
mid- to late-summer, perhaps, he has thought that he would be 
in a position to evaluate whether the plan was working.
    In May, the President said even more time would be 
necessary, he told us General Petraeus said, ``It would be at 
least the end of the summer, before we can assess the impact of 
this operation.'' Congress ought to give the Petraeus plan a 
chance to work. A week later, Secretary Gates said the 
administration would make their evaluation of the situation of 
the surge in September.
    On May 9, Lieutenant General Ray T. Odierno, the Commander 
of Multi-National Force-Iraq, said the surge needs to go 
through the beginning of next year, for sure. Then on July 20, 
General Odierno again admitted that it would be at least 
November before the military could provide a real assessment.
    What the American people want is a real assessment. They 
want it in a timely way. They've had assurance, by the 
President and the Secretary of Defense, that we would have that 
in September. You've indicated that, from your responses to the 
questions from the chair and Senator Warner, that you thought 
you'd be prepared to make that judgment as well.
    Can you give us the assurance now, that that is your 
timetable?
    Admiral Mullen. Yes, sir.
    Senator Kennedy. That we are going to have that judgment 
from you as to what these alternatives are by September?
    Admiral Mullen. It is, to the best of my understanding 
right now, the intent of Ambassador Crocker and General 
Petraeus, to come in and deliver that assessment in September. 
I talked about the timeliness of the Joint Chiefs assessment as 
well.
    Senator Kennedy. Let me ask you, comments that you made in 
your earlier statements, if you could clarify about some of the 
things you wrote in your questions to the committee. You 
suggested that we, ``Work with the Government of Iraq to 
achieve a long-term security agreement, that supports our 
mutual interests.'' Yet, you wrote that you agree with the U.S. 
policy not to seek permanent military bases. Can you clarify 
what you mean by ``long-term security agreement'' and what you 
mean by a ``commitment measured in years, not months''?
    Admiral Mullen. I think that, Senator--and I'll just 
reiterate what I said in my answer--that I understand the 
United States' position with respect to permanent military 
bases, I don't expect any. I think it is very important in the 
long-term strategy, which has been laid out in the end state, 
that Iraq is an ally in the war on terror, and that we have a 
relationship which is supportive of each other in that part of 
the world.
    Senator Kennedy. So the long-term security agreement does 
not include the permanent bases?
    Admiral Mullen. That's correct, yes, sir.
    Senator Kennedy. I'm sure you believe, know, or understand 
that the Iraqis believe those bases that are being built over 
there, are going to be permanent American bases. At least, 
that's the view of many.
    Just shifting, because the time is moving on--I'm very 
impressed by what you have talked about, and your vision of the 
21st Century Navy, the fifth part, where you talk about the 
training, the new challenges for training the professional 
military officers. You need to have the firm grasp, and you've 
reviewed those fundamentals--my time is short, you're familiar 
with this--in tactics, technology, and leadership. You've 
indicated that this was your intention, as the Chief of Naval 
Operations (CNO), that you were going to have increased 
diversity rewards for continuing education training, the 
institutionalization of executive development. I don't know 
whether you've referenced it as, Winston Churchill said, 
``Battles are won by slaughter and maneuver. The greater the 
general, the more he contributes to maneuver, the less he 
demands from slaughter.''
    Do you want to just comment?
    Admiral Mullen. I'll go to Senator Warner's comment about 
the All-Volunteer Force. I think that we, as leaders, need to 
pour ourself into the development of our people in the future. 
It's across that full spectrum in what I see as a very 
challenging world and global responsibilities and leadership 
from the United States, which is very important.
    Senator Kennedy. My time is up. Thank you very much.
    Chairman Levin. Thank you, Senator Kennedy.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Admiral Mullen, this morning you described our troops as 
being strained and stretched, and this is a concern that I 
share, and that I think every member of this panel shares. 
We've seen longer deployments, more waivers granted to recruits 
with criminal records, we've actually seen an extension of the 
age limit for recruits. We've also experienced considerable 
difficulty in filling specialty positions, such as for 
linguists--which are obviously very important in Iraq and 
Afghanistan.
    Press reports have said that more than 50 Arabic linguists 
have been discharged from our Armed Forces since the, ``Don't 
Ask, Don't Tell'' policy was instituted. In addition to this 
loss of translators, the estimates are that there were more 
than 11,000 other servicemembers that have been separated since 
``Don't Ask, Don't Tell'' was instituted by Congress, back in 
the early 1990s.
    I've recently met with a retired admiral in Maine, who 
urged me to urge you to reexamine the ``Don't Ask, Don't Tell'' 
policy. In your view, should we reevaluate this policy?
    Admiral Mullen. Senator, the current policy and law is, as 
you've described. It's a policy that came in a time and was 
greatly debated at the time that it was actually put in place.
    I'm supportive of that policy, I really think it is for the 
American people, to come forward, through this body, to both 
debate that policy, and make changes, if that's appropriate.
    That's how I see it. The current policy is one I support, 
have supported, and until it changes, or really changes both in 
policy and law, that's where I am.
    Senator Collins. Would you encourage Congress to reevaluate 
the policy?
    Admiral Mullen. I'd love to have Congress make its own 
decisions with respect to that. [Laughter.]
    Senator Collins. Let me switch to a different issue, 
involving Iraq. You've discussed this morning the possible 
consequences of a rapid withdrawal, in response to Senator 
Warner's question. Some of the proposals that members of 
Congress have been putting forth, particularly in the House, 
mandate a rapid withdrawal with a starting date, and an end 
date.
    Now, aside from the dire consequences, in your view, of a 
rapid precipitous withdrawal on the Iraqis, on our country's 
security, and on the region--are there logistical concerns? 
Some of the proposals would give our troops very little time to 
withdraw--just a matter of a few months. Is it practical, from 
a logistics and safety concern, for a rapid withdrawal in a 
matter of months, to be undertaken?
    Admiral Mullen. Should we be put in that position, make the 
decision to do that, we need to be, I think, mindful that it 
will, logistically, it's a physics problem, it's just 
physically going to take us some time to move. We have an 
extraordinary amount of equipment there. We would have to 
decide, what we would leave, what we would bring back, and what 
we would repair.
    In addition to that, I am extremely concerned in any 
transition scenario, ensuring that we do it in a way that 
protects our troops. That we don't expose them to the kind of 
challenges that could be brought on. There's risk in being 
there now, there will be risk in any kind of transition. But 
that we plan for, and make sure that, any exposure is both 
understood, risks are understood, and we absolutely minimize 
it, to support their safety.
    Senator Collins. Finally, I cannot leave this round of 
questioning without bringing up a concern that you and I have 
discussed many times. That is the adequacy of our shipbuilding 
budget.
    As CNO, you've done an extraordinary job in providing 
funding toward the goal of a 313-ship fleet. That is, at a 
minimum, what I believe is necessary to ensure that we have the 
sea power necessary to project force. We have a real challenge 
from China, for example, which is rebuilding its fleet at an 
alarming rate.
    If you are confirmed, will you continue to advocate for a 
313-ship fleet?
    Admiral Mullen. As of today, Senator, I am still the CNO, 
and I'm still working hard to develop, support, and fund the 
plan to which you refer, for 313 ships, which I think is vital 
for our country.
    Certainly, while I will have vast responsibilities, across 
the entire Joint Force, and mindful of that, and we've spoken 
to many of those--I'll never lose sight of what that number is, 
and how we're doing.
    I would also thank you for your continued support for 
shipbuilding, and in particular, the shipyard, which is so 
special to us, in building our new ships, and all of the 
citizens of Maine who do that, and do that exceptionally well. 
They are national treasures.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Collins.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    Thank you, Admiral Mullen and General Cartwright, for your 
extraordinary service, and your willingness to take on these 
critical assignments at this critical time.
    General Cartwright, I think you're finding out this morning 
that one good thing about being Vice Chairman, is that you get 
asked less questions than the Chairman. [Laughter.]
    But, that will only be on occasions like this.
    Admiral Mullen, most of the time has been spent on Iraq, I 
don't really want to go over that much more, except to thank 
you for your answers. I think they've been straightforward, and 
important for us to hear.
    You were asked in the question period whether you thought 
there was any purely military solution to the problem in Iraq, 
and you said, no--I want to say that, as one whose strongly 
supportive of what we're doing in Iraq, I totally agree with 
you. In the end, it has to be a political solution. The 
military presence there is a necessary, but not sufficient, 
basis for an ultimate solution.
    It's necessary, one, because you have this real sectarian 
violence, it's going on after these people have been liberated 
from a brutal dictator.
    Two, you have some outside forces that are stirring up the 
sectarian violence, and don't want a political solution to 
occur.
    Now, I'm speaking particularly about al Qaeda in Iraq. Why 
are we there? I thought in one sentence, or two sentences you 
gave a very logical way--not only why we're there, but why when 
we talk about a drawdown, to do it in a sensible, planned way. 
That is because security in Iraq is tied to security in the 
entire region. Security in that region of the world is--and has 
always been--tied directly to American security.
    That's why we're trying to get the Iraqi military to be 
able to provide the security that is necessary for an ultimate 
political solution.
    I want to go in my questions to Iran. You mentioned it in 
your opening statement, you said you were concerned with Iran's 
aggressive posture, and destabilizing activities. Could you 
just say a little bit more--in more detail--about what concerns 
you most about Iran's activities today, in the Middle East and 
beyond?
    Admiral Mullen. I alerted strongly a year ago, when the 
Israelis went into Lebanon, and the support that was clearly 
there from Iran to support Hezbollah. Not that it was new, but 
it was clearly highlighted in a way that the world could see.
    Iran is now supporting the Taliban, in the Middle Eastern 
view of ``the enemy of my enemy is my friend.''
    Senator Lieberman. Because they've not previously been 
allied, correct?
    Admiral Mullen. They have been pretty strong enemies.
    Senator Lieberman. Enemies. So why would you think it was--
--
    Admiral Mullen. So, that strategic shift, for them to me, 
is a big deal.
    Senator Lieberman. Right.
    Admiral Mullen. The resurgence of the Taliban in 
Afghanistan is of concern.
    Senator Lieberman. So do you think that's, when you say 
``the enemy of my enemy is my friend,'' it's us?
    Admiral Mullen. Yes, sir, absolutely. That's my view.
    Senator Lieberman. I agree. If the Taliban's against us, 
then Iran--no matter what the previous hostilities with the 
Taliban, are going to support the Taliban now.
    Admiral Mullen. Clearly we have strong indications to 
evidence that they have provided technology that is, has made 
its way into Iraq, is now making its way into Afghanistan, and 
which are killing our soldiers and coalition soldiers.
    Those are what I consider to be facts, in addition to the 
rhetoric, which is very strong, in addition to the clear 
support of many things in Southern Iraq, and then I would just 
back off to just my CNO hat, as I have watched them operate 
over the last couple of years in the Persian Gulf, to Senator 
Warner's point about the resources that flow through that Gulf, 
and the immediate global impact of strangling that out.
    It is that combination of things--in addition to the 
pursuit, certainly, of the capability of developing nuclear 
weapons. This isn't just a view I've developed myself, because 
I've talked to our friends in that part of the world, I've 
interacted with many of the Gulf States. The leadership of 
those States are very concerned about it, and it's very 
important we assure our friends there, now and in the future, 
that we will be there for them, and that all ties into this 
whole regional stability piece. So, it is that combination of 
things that makes me very concerned about Iran, and where 
they're headed.
    Senator Lieberman. That's part of the explanation of what 
you meant about the impact of how we conclude, or go forward 
with our presence in Iraq?
    Admiral Mullen. Yes, sir.
    Senator Lieberman. If we do it too rapidly, if we do it 
before they're ready, we create the cauldron, it will send a 
signal to our allies in the region, and it will, of course, 
encourage Iran.
    Admiral Mullen. I think we need to do it thoughtfully, 
measured, understand the risks, and be prepared for that.
    Senator Lieberman. Right. Based on that ``enemy of my enemy 
is my friend,'' would you agree that one of Iran's goals now--
both in Afghanistan and Iraq, and generally in the region, is 
to try to push the United States out, or to push us, at least, 
into a less prominent position?
    Admiral Mullen. Yes, sir. I would agree with that.
    Senator Lieberman. That's a real concern. I would say not 
only to us, but all of our allies in the region, including 
particularly, the moderate Arab allies, and of course, Israel.
    I want to thank you for being specific about the importance 
of the Gulf, and the passage of oil through that Gulf. We 
sometimes hesitate to do that. We have put ourselves--not to go 
on about it here--into a dependent position when it comes to 
how we power our society, we use too much oil from abroad. But, 
the fact is, that's real now, and as Senator Warner suggested--
and you've answered--we ought not to be hesitant to say that 
one of the reasons we need to maintain stability there--and 
have the military presence, for instance, that the Navy 
represents under your leadership in the Gulf, is that a crisis 
there could raise the price of oil so high that it would have a 
devastating impact on the world economy, but let's be 
appropriately chauvinistic--on America's economy, and on the 
quality of life of tens of millions of Americans.
    We now have two carrier battle groups in the Gulf, is the 
second one still there, or do I understand it may be deploying 
out?
    Admiral Mullen. We try not to discuss where they are and 
what they're doing publicly, Senator.
    Senator Lieberman. Okay.
    Admiral Mullen. But, clearly we've had a Navy presence 
there since the late 1940s.
    Senator Lieberman. Right.
    Admiral Mullen. I would expect we would continue to have 
that--and we will continue to have aircraft carriers and other 
naval assets in that part of the world, and we do.
    Senator Lieberman. Right. Always the ability, in a moment 
of crisis to move naval assets there rapidly.
    Admiral Mullen. Yes, sir.
    Senator Lieberman. Final question--totally different part 
of the world, but as we're engaged in the battle against 
Islamist extremism, Iran, al Qaeda, et cetera, there's a world 
out there that we're trying very hard to manage, of rising 
superpowers, particularly China--manage diplomatically, to 
avoid conflict. But, you said in your prepared response, that 
you believe long-term trends suggest that China is building a 
military force scoped for operations beyond Taiwan. Could you 
just talk about what you meant, and how you feel about our 
relations with China?
    Admiral Mullen. Clearly, their investment, their high-end 
capability submarines, surface ships, they're talking now about 
bringing an aircraft carrier within 2 to 3 years--and the 
technologies, and the weapons, the aviations side--all of which 
give them more capability than to just defend Taiwan.
    I said in answering the question, a peaceful rise of China, 
given many things including the economic engine that she is, is 
a very good thing for the world. What I've spoken about 
consistently, is the transparency of their development, on the 
military side--and it has not been transparent, I actually 
hosted my counterpart here--a few months ago--he had that 
message loud and clear, and I actually hope, later on or in 
mid-August to return that visit, to China, in a continued 
desire to make and sustain contacts and engagements, so we do 
understand each other better.
    It's very important, thank you very much.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Corker.
    Senator Corker. Mr. Chairman, I have had the opportunity to 
spend some personal time with the Admiral, and certainly 
believe that he and the General are outstanding nominees. This 
is my first hearing, and I want to thank you for the protocol 
that you have in place, number one, the questions and answers 
that they both have extensively answered, and having those in 
advance, and second, the first come, first talk protocol that 
you have here.
    Because this is my first meeting, and I certainly do not 
expect to ever do this again, I'm going to defer to some of the 
more senior members, I know they're anxious to ask questions, 
and I appreciate the opportunity to do that.
    Chairman Levin. You're very wise to indicate you're not 
going to repeat that mistake in the future. [Laughter.]
    Senator Corker. Okay, thank you.
    Chairman Levin. Thank you.
    In that case, Senator Cornyn is next.
    Senator Cornyn. Thank you, Mr. Chairman, and I thank 
Senator Corker, and welcome him to the committee as well. It's 
nice to know some of us are gaining a little bit of seniority, 
thanks to the addition of new members on the committee.
    Admiral, General, welcome. Thank you, again, for your 
service to our Nation, and your willingness to take on this 
huge challenge.
    I haven't been here the whole time, but I want to allude to 
an op-ed piece that appeared in the New York Times yesterday by 
Michael E. O'Hanlon and Kenneth M. Pollack, which is titled, 
``A War We Might Just Win.'' Interesting title.
    They say that here's the most important thing that 
Americans need to understand. We're finally getting somewhere 
in Iraq, at least in military terms, and they talk about what 
victory might look like. They call it ``sustainable 
stability,'' what they see as the victory there. They point out 
to the high morale of our troops, a huge contrast with the mood 
here in Washington, DC.
    During the debates we've had on the way forward in Iraq, 
and whether, and on what conditions we might withdraw our 
troops, I've always believed that we all want our troops to 
come home, as soon as possible, but the difference between us 
are those who want to do so on a timetable--without regard to 
conditions and consequences, and those who believe that it 
ought to be based on conditions on the ground. We ought not 
leave Iraq without the ability to sustain and defend itself, 
not just because of what it would mean to our allies, but what 
it would mean to us, in terms of a failed State in Iraq, and 
the encouragement and emboldening that it would provide to al 
Qaeda, and our other enemies.
    Would you summarize, perhaps, Admiral, what you view as the 
consequences of a withdrawal from Iraq that's based on a 
timetable, without regard to conditions on the ground?
    Admiral Mullen. If I may just briefly speak to the op-ed 
piece, Senator, which you brought up. One of the things that 
struck me about that, certainly, that it would come from 
individuals who were very pessimistic, as they said, I think, 
as recently as a year ago. That said, they focused on the 
military side, and I feel very strongly that that, clearly, is 
starting to go well, and providing the kind of space and time 
we talked about earlier, in order for the Government of Iraq to 
move forward.
    The other thing that struck me was in my most recent trip, 
which was over the holidays, was the contrast between what I 
found on the ground, in theater, and what I thought was going 
on based on being here. They spoke to this, as well. I really 
do think that's an important piece for all of us, and it goes 
back to listening to General Petraeus and Ambassador Crocker 
when they come in, and really understanding, and having their 
birds' eye view for what's going on, so that when we make 
decisions, we have that view in mind.
    I worry about a mandated timetable. I worry about mandating 
to any commander on the ground. Because it severely constrains 
an operational, or a tactical, commander. I'm a warfighter at 
heart, if I'm on the other side, and I know the timetable's out 
there, it's going to create an opportunity for me to do some 
things to possibly take advantage of that. It doesn't mean I 
win, but certainly I can put that in my calculus.
    That said, and General Petraeus said it yesterday in an 
interview, the surge is scheduled to start to be relieved in 
the spring, just with rotational units--and that it is 
temporary--that's what the Secretary of Defense has said, and 
we need to be mindful of that, as well.
    So, there is a time element here, there is a condition on 
the ground element here, and I think it is the mixing of those 
two that we need to be mindful of, in terms of decisions that 
we make in a measured way.
    Senator Kennedy and I talked about a cauldron. Certainly 
there are parts of Iraq that are not going well right now. I'm 
concerned that it will turn into a failed State, one that 
emboldens Iran, and other neighbors, those kinds of things, 
when I talk about a cauldron. That would impact, not just Iraq 
and the Middle East, but us.
    Senator Cornyn. While there do appear to be objective 
reasons to be more optimistic, although as far as our military 
is concerned----
    Admiral Mullen. Yes, sir, I would agree.
    Senator Cornyn.--there seems to be an attitude that if we 
just put enough pressure on the Iraqis, on the governance side, 
that we can somehow force them to do, or persuade them to do 
things that they might not otherwise do, or on a timetable that 
might be more suitable to our preferences.
    What I've always wondered is, if we put so much pressure on 
the Iraqis that they collapse and are unable to govern 
themselves without a lot more bloodshed, perhaps, a lot more 
confusion and chaos in the meantime, that would seem to me to 
be a bad thing, to put that much pressure on them.
    I don't really know how to gauge that. I'd be interested in 
your thoughts. How do we know that we're putting, let's say, 
optimal pressure on them, to encourage them to govern 
themselves, to take that responsibility, but not so much that 
they just collapse, and create that failed State that we all 
are concerned about.
    Admiral Mullen. I struggle with that as well, Senator. I 
don't have a specific answer with respect to that. I do, again, 
go back to Ambassador Crocker and General Petraeus, and their 
views of that, because they are there, to me, seemingly, they 
would be able to--particularly the Ambassador--answer that 
question better than anybody else. How far along that curve are 
we? That they may collapse any minute, I just don't know.
    Senator Cornyn. Mr. Chairman, in the spirit of Senator 
Corker, I will yield back my remaining time.
    Chairman Levin. Thank you so much.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, Admiral and General, not only for being here 
today, but for your extraordinary service to the Nation and the 
naval service. Thank you very much.
    You said, Admiral Mullen, in response, I believe, to a 
question of Senator Levin, that you were going to do your 
utmost to maintain rotations of no more than 12 to 15 months. 
Effectively, that means--as you also suggest--by next April, 
regardless of the conditions on the ground, the surge will end, 
because we simply will not be able to put manpower on the 
ground, unless we extend rotations. Is that a fair assessment?
    Admiral Mullen. Yes, sir, that's fair.
    Senator Reed. So, all this discussion of conditions on the 
ground, let the thing play out--I think are trumped, 
essentially, by an overwhelming reality of our force structure. 
It has to end next April, the surge. I think we have to begin 
to think about the end of the surge. There is a timetable 
directed by the force structure that we have, and I think both 
of you gentlemen recognize that. I think, again, we seriously 
have to consider what happens after the surge. That is a lot of 
what you will be thinking about, and General Cartwright will be 
thinking about.
    But, this notion that we're going to have an unlimited 
opportunity to keep forces there at this level, that we're only 
going to take forces down based upon General Petraeus' 
suggestion that things are okay now, I think, is fully rebutted 
by the force structure. Is that fair?
    Admiral Mullen. I think that's fair, Senator. The other--
and this gets to responding to Senator Levin's question about 
options, and how is the transition to the Iraqi security forces 
going, when does that take place--back to Senator Cornyn's 
point--I think all of us want to bring our forces home as soon 
as we can. Those are other aspects of this that certainly will 
be informed by understanding where we are with respect to how 
Ambassador Crocker and General Petraeus see it.
    Senator Reed. I appreciate the fact, and I just spent an 
evening with both General Petraeus and Ambassador Crocker about 
2 weeks ago. They're terribly talented individuals who are 
doing their best, but it seems that what is really driving the 
situation--first, our force structure, second, again, I think 
you've suggested this, there's been no real political progress 
on the ground. That was one of the premises of the surge, that 
there would be some significant political progress. Those two 
factors, I don't think, will be significantly altered in the 
next 60 days, or maybe even 6 months. Do you have any comments 
on that?
    Admiral Mullen. I'm actually very committed to waiting 
until September to see where those two individuals are, sir.
    Senator Reed. Let me change subjects, slightly. What is 
Admiral Fallon's role as the Commander of U.S. Central Command 
(CENTCOM), given that every suggestion by the White House is 
that General Petraeus will be the deciding voice, in fact, 
even, I think, General Pace's role seems to be somewhat 
diminished. Are you concerned about that, in terms of, Chairman 
of the JCS, your role as incumbent will be, as the Chief 
Advisor to the President, will not be the chief advisor to the 
President on this issue?
    Admiral Mullen. My view, if confirmed to this position--and 
it is actually my view as a member of the Joint Chiefs--is 
General Petraeus, while a very important individual, and 
clearly one for whom I have the greatest respect--is one voice. 
He has a couple of bosses, one of whom is Bill Fallon, and Bill 
Fallon is working this very hard, as well. I know that. I've 
spent time with him. He has a voice in this, and will have a 
voice in this, as we move forward. The same is true with the 
Joint Chiefs, and General Pace has led that effort very well.
    Senator Reed. One of the persistent problems is the 
inability of non-DOD elements to complement the increased 
forces, military forces, with civilian actors.
    Admiral Mullen. Yes, sir.
    Senator Reed. Do you see any progress on that front? If 
there is not progress on that front, how do we address the 
needs of reconstruction, how do we address the report by the 
International Crisis Group, which I believe was issued 
yesterday, which basically declares Iraq as a failed State? 
Huge numbers of people who are without even access to water, 
and frankly, that is a contrast to 2003. How do we deal with 
that? If you're talking about stability, one of the most 
destabilizing elements is people who are starving, and thirsty, 
and desperate.
    Admiral Mullen. Senator, one of the reasons I supported the 
surge, was because of our Government's commitment, not just the 
military lines, but the economic and political lines. Not just 
to have Ambassador Crocker work the problem, but expand that 
base.
    We've expanded the number of Provincial Reconstruction 
Teams (PRTs), they are, in fact, being stood up, over the fall. 
I am concerned about the pace of that--the other arms of 
government are much more engaged with this surge than prior to 
that surge, I've been concerned for a long time about the depth 
and capacity for that kind of capability. I think we have to 
have it as a government, not just for this run, but for the 
future.
    I remain concerned about that. It's better than it was, but 
it's not where it needs to be.
    Senator Reed. Just a final point. I have seen reports, news 
reports, that were broadcast by al Zawahiri, that basically 
suggested that, they see us as being trapped in Iraq. If we 
disengage, that will be something that would not be consistent 
with what they see as a strategy they feel is working very well 
for them. Is there any credence in terms of that?
    Admiral Mullen. When I laid out the three challenges in my 
opening statement about the Middle East, and certainly Iraq and 
Afghanistan as a part of that, and security in that area. That 
is what I believe my leading challenge will be. We need to take 
steps which ensure that we are stable for the short- and the 
long-term there. That we move, in Iraq, with that in mind. I 
don't consider that a trap, I consider that we clearly have 
very complex, very tough challenges, that we have to work our 
way through.
    Senator Reed. Thank you very much. Again, Admiral and 
General, your great service to the Navy and Marine Corps, and 
your perspective service as the Chairman and the Vice Chairman 
is something I think will give confidence to all of us.
    Admiral Mullen. Thank you, sir.
    Chairman Levin. Thank you, Senator Reed.
    Senator Graham.
    Senator Graham. Thank you. My compliments to both of you 
for your service to our Nation to pick up where Senator Reed 
left off.
    About 2 years ago, we had this debate about, do we need 
more people in the Army or the Marine Corps, and there was a 
pretty strong push-back that we didn't. Looking back, was it a 
mistake not to build up the Army and Marine Corps sooner?
    Admiral Mullen. I'm very supportive of building them up, 
yes, sir.
    Senator Graham. How many troops can we muster to stay in 
Iraq on a sustained basis, come April?
    Admiral Mullen. If you drop the guidelines, the specific 
15-12 rotation----
    Senator Graham. Let's assume we kept them.
    Admiral Mullen. If we keep them--we can continue coming 
down, we can rotate troops in behind the ones that would rotate 
out, coming down from 20 right now, to 15, which we do without 
relief. Based on what the mission is--15 brigades--based on 
what the mission is----
    Senator Graham. I'm an Air Force guy, just give me numbers. 
I don't do brigades. How many people will we have?
    Admiral Mullen. We have 160,000 there now, certainly as we 
come down, we could back fill them. But, as I indicated 
earlier, Senator, I'm very concerned about the stress that is 
placed on our people. I think we have to put that into the 
equation.
    Senator Graham. So let's put that in the equation. Would it 
be your advice, what you know now, what troop level could we 
maintain without breaking force, given the 12-15 month dynamic, 
come April?
    Admiral Mullen. If we start to come down, it would take us 
a couple of years to get us into a one-to-one rotation, that 
means 1 year over, 1 year back. We have to come down to about 
10 brigades, or let's say half the force that we have right 
now, to move us towards a two-to-one rotation. Roughly, in that 
ballpark. Which means, over for a year, back for 2 years. Which 
is our goal right now.
    Senator Graham. So, we would be reducing our force presence 
by half?
    Admiral Mullen. To achieve that, yes, sir. But it would 
take us awhile to get there.
    Senator Graham. How long?
    Admiral Mullen. Probably 3 to 4 years.
    Senator Graham. Now, we're trying to grow the size of the 
Army and Marine Corps, and I assume, General Cartwright, you 
support that?
    General Cartwright. I do. Yes, sir.
    Senator Graham. The number we're picking for the Marine 
Corps, is that the proper number, in your opinion?
    General Cartwright. The 202,000 would allow us to get to 
this 2 and 1 ratio, sooner. That sooner would not be measured 
in multiple years, it may cut off a few months, because we have 
to, not only train them, but we have to buy the equipment to 
equip them. When you put the two of those together, getting 
those forces into the field, and making them operationally 
viable is going to take you 2 to 3 years.
    Senator Graham. Admiral, when it comes to the Army, have we 
picked the right number, in terms of growing the Army?
    Admiral Mullen. Yes, sir. As far as I understand right now, 
in fact, I've spoken with General Casey about this as recently 
as yesterday--and we discussed this, and where General Casey 
wants to go is to get to the 547,000, which is the currently 
approved number, and then evaluate where we need to go.
    Senator Graham. Is it pretty clear that elements of the 
Iranian Government are actively involved in killing American 
soldiers?
    Admiral Mullen. Yes, sir.
    Senator Graham. What do we do about that?
    Admiral Mullen. I think we need to continue to, certainly, 
make a point of that in every forum that we have, work hard on 
shutting off the paths that the technology is coming through, 
and consistent with my concern with their very strong 
statements about where they're headed, and the support of the 
terrorist regimes, I think we need to address that very 
strongly.
    Senator Graham. Why do you think they're trying to kill 
American soldiers?
    Admiral Mullen. Basically, in support of continuing to try 
to make it difficult for us in Iraq. Actually, in Afghanistan, 
as well.
    Senator Graham. So, it's your belief that Iran is trying 
to, basically, drive us out of Iraq so they would, I guess, be 
a winner, if we left?
    Admiral Mullen. Yes, sir.
    Senator Graham. How would they win?
    Admiral Mullen. I think that the Shia connection between 
Tehran and Baghdad is one of great concern. The influence that 
they have with the Badr, the Mahdi Armies, is of great concern. 
It's very difficult to predict how that would play, 
specifically, in terms of what Iran would do, but I think 
they'd be much more comfortable with a Shia-run government 
right next to them.
    Senator Graham. If it was perceived throughout the world 
that the United States lost in Iraq, who would be the winners?
    Admiral Mullen. Clearly, Iran would be. The challenge we 
have with respect to al Qaeda, which I think we have to 
continue to address, under all circumstances, there would be 
the Islamic theocracies, the radicals, would certainly be seen 
to be on the winning side.
    Senator Graham. General, are we--through the surge--
diminishing al Qaeda's presence and viability in Iraq, or not?
    General Cartwright. We are challenging it. In that 
challenge, in areas, we are diminishing it, for sure. They are 
resilient. They seem to have an unlimited pool from which to 
draw from, if you're on the battlefield. In other words, as we 
defeat, others come in behind.
    But, the environment in which they're finding in Iraq, with 
the surge, currently, is an unfriendly environment, and that's 
challenging their ability to be resilient in that area.
    Senator Graham. How would you define winning in Iraq, 
Admiral?
    Admiral Mullen. I worry a little bit about the terms 
``success,'' ``failure,'' ``winning,'' and ``losing.''
    Senator Graham. Wars are about winning and losing.
    Admiral Mullen. I understand that. Yes, sir, I understand 
that. A stable Iraq, which can govern itself, has control of 
its borders, and gets to a level of national and local 
reconciliation, as well as it not becoming a safe haven for al 
Qaeda.
    Senator Graham. How would you define winning, General 
Cartwright?
    General Cartwright. My sense is that we find a government 
that observes the rule of law, number one. Number two, that we 
have an economy in that country that's improving. Number three, 
we have security. Number four, it sits in a strategic location, 
geographically, it sits between extremists and moderates, and 
that in that position it helps us, in a regional construct, as 
we've spoken to, to help the area and the region develop in a 
more logical and measured way.
    Senator Graham. How would you assess our likelihood of 
winning, given what you know now, Admiral Mullen?
    Admiral Mullen. I think it's very important, back to the 
regional stability, Senator, that we take steps to ensure that 
it is secure.
    Senator Graham. The question is not whether it's desirable 
to win, but the likelihood of winning. We all know it's 
desirable to win, but the likelihood?
    Admiral Mullen. Based on the lack of political 
reconciliation at the government level, although I spoke 
earlier about some of it going on, at the local level, which I 
think is important, I would be concerned about whether we'd be 
winning in Iraq.
    Senator Graham. General?
    General Cartwright. I think we can win, Senator. It's going 
to be a challenge. In September, we're going to get the 
opportunity to assess that the path we're on is the right path, 
or whether we want to make adjustments, but we do have the 
ability, and we do have the staying power to do that. From a 
regional perspective to create the environment that we want to 
create out there.
    Senator Graham. Finally, do you see Iraq as part of a 
global struggle? Or an isolated regional event?
    Admiral Mullen. At this point I see it actually, not 
isolated but rather regional and global. I have come to believe 
that there are very few struggles around the world that don't, 
these days, have global impact.
    Senator Graham. Would you agree this is a war, really, we 
can't afford to lose, when it's all said and done?
    Admiral Mullen. Yes, sir.
    Chairman Levin. Thank you, Senator Graham.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    I'd like to welcome both the Admiral and the General. It's 
kind of scary to say this, but I've known Admiral Mullen for 
more than 40 years now. I think that he is the right individual 
for this job. He's someone who's always been known for his 
clarity of thought, and for having the courage of his 
convictions. I think we're seeing that at this hearing here 
today.
    General Cartwright, with your background, not only 
tactically, but also having had enormous strategic 
responsibilities in our country, I wish both of you well.
    I'd like to just say something for the record, with 
response to what my colleague from Texas mentioned on this op-
ed piece. Just to clarify, my thoughts from the individuals who 
wrote the op-ed piece in the New York Times yesterday, at least 
one of them, was one of the big supporters for the invasion of 
Iraq in the first place. Mr. Pollack wrote a whole book about 
why we should go in. Whatever the findings on the ground, I 
don't think we should be characterizing this as people who have 
been turned around by recent events.
    Also, Admiral, I think you know this, and I was really 
gratified to see the scope of your testimony, with respect to 
our strategic obligations around the world, and also the fact 
that you mentioned that we need to get back to the goal of a 2-
to-1 rotational cycle for our troops.
    But the question, really, has never been, from this side, 
whether we should pick one specific date, in terms of 
withdrawing from Iraq. The question has been, how we 
recuperate, as a Nation, for what many of us believe was an 
enormous strategic blunder. Going into one specific country, 
that was not directly threatening us, at a time when we needed 
to be focusing on international terrorism at large, and the 
other strategic considerations that you mentioned in your 
report--and that really goes to how we balance all of our 
national assets, not simply the military assets--and what does 
it mean? What does it mean to fail? What does it mean to 
succeed? You've been asked a number of leading questions here 
with specific terms in them. But, in reality, what we have to 
be doing here, is to figure out the right configuration of 
national assets, that will allow us to diminish our presence, 
physically, in Iraq, at the same time increasing the stability 
of the region.
    I don't think we focus on this enough, when we start 
talking about the problems in Iraq. That, the issue of regional 
instability, what you've alluded to a number of times in your 
testimony, is the key. Not simply regional instability if we 
were to make a precipitous withdrawal, but regional instability 
now. Largely as a result of the fact that we went into Iraq in 
the first place. We're now seeing oil at a higher level than 
ever. We're pushing $80 a barrel on oil. That's always an 
indicator from the international community about its unease 
with what's happening in that region.
    We're seeing turmoil with refugees, inside and out. The 
number that I've seen is about 4.5 million refugees, about 2 
million of those, right now in Jordan, straining that 
government. We've seen sponsorship of ethnic factions from the 
outside, we've spent a good bit of time talking about Iran. We 
should also be talking about the Saudis, the numbers that I've 
seen is the Saudis actually have a plurality of suicide bombers 
in Iraq.
    We see instability on the Turkish border, with respect to 
Turkey now being threatened by the strength of the Kurdish 
communities up there, and how it would affect Kurdistan at 
large.
    So, really, the question becomes, to what extent our 
military presence in Iraq affects this instability, and to what 
extent these issues should be dealt with through robust 
diplomacy? I'd like your thoughts on that.
    Admiral Mullen. I think that, back to my constant refrain 
on regional stability, and then, specifically, getting to what 
to do about Iraq, I think they're inextricably linked. We, as 
we make decisions about moving forward, need to keep that in 
mind.
    You've described a few of the complexities that are clearly 
here. It's where we are, and we need to be mindful of that as 
we move forward. I don't think you can tear them apart, I don't 
think you can de-link them. Many of these questions don't have 
an answer that is very exact, this is, ``I know what we should 
do, therefore let's do this,'' which is why I would argue for 
us to move through this in a very measured way.
    We do have regional and global responsibilities, that are 
very much tied to how we move forward here.
    Senator Webb. Right, and I think that the thing that we 
often miss in this debate, because it's become like the Battle 
of the Psalm, politically, in terms of the way people have dug 
in up here on trying to resolve this issue, but there are 
instabilities that have been created, simply because we're 
there, and there are instabilities that could result if we 
leave in the wrong way. But we do need, in my view, to be 
moving toward that.
    May I ask you, with respect to this notion of permanent 
bases--we all agree that there shouldn't be permanent bases, 
but how do we define a permanent base? I read an article 
yesterday that said, ``Well, we're using sand bags instead of 
concrete,'' but my view is that there ought to be a different 
way to measure that. How do we define a permanent base, when we 
say we're not going to have one?
    Admiral Mullen. The way I think about it, is we have 
permanent bases in places overseas right now, be it Germany for 
the Army, for instance, or Okinawa for the Marine Corps, or 
Cuzka for the Navy--those are permanent bases, where we have 
permanent change of station (PCS) people, we have PCS families, 
in many cases. In Bahrain we don't, we certainly have strong 
support there. That's where I would draw the line. I recognize 
the significance of the issue.
    Senator Webb. I would say the term is--where I'm trying to 
get here is--the term really has more diplomatic overtones than 
it does structural.
    Admiral Mullen. Yes, sir.
    Senator Webb. A lot of people who wanted to move us into 
Iraq were openly saying that we should be on the ground in Iraq 
for the next 50 years. I would assume you don't agree with 
that?
    Admiral Mullen. I certainly haven't put any kind of 
timetable like that. I do think we will be there for years, not 
months, but I don't see it as, on a permanent basis.
    Senator Webb. When you mentioned, if you move to the 2-to-1 
rotational cycle, it would take 3 to 4 years to get there, this 
was in response to Senator Graham's question. Would you say it 
would take 3 to 4 years to get to 2-to-1, or 3 to 4 years to 
get to 80,000 troops in Iraq?
    Admiral Mullen. If we get down to about half of where we 
are right now, somewhere around 8 to 10 brigades, it is my 
understanding is it's about 3 to 4 years, in terms of being 
able to sustain that with a rotation that isn't to----
    Senator Webb. Just simply in terms of drawing out the 
rotational cycles----
    Admiral Mullen. That's right.
    Senator Webb. Given the current mission.
    Admiral Mullen. Also, the new troops, the increased end 
strength in the ground forces, and we have a tendency to focus 
on personnel only and for not just the Army, but also the 
Marine Corps, and to General Cartwright's point earlier, we 
have to provide the equipment--both repair it, as well as buy 
it, and train them.
    Senator Webb. If I may, Mr. Chairman, just one short 
question, I don't want General Cartwright to think that he was 
being totally ignored.
    I have a much more parochial issue, but having worked in 
the Pentagon and knowing that the sorts of things that the Vice 
Chair works on, it seems to me, with such a high percentage of 
officers in the military right now having enlisted service, 
that we have a cap, generally, with Defense Officer Personnel 
Management Act (DOPMA), of 30 years aggregate service before 
you're forced to retire. It seems to me that we're losing a lot 
of really highly-qualified officers, who particularly, if they 
go through a program like the Marine Corps Enlisted 
Commissioning Education Program (MECEP), or something where 
they have college time that counts against their Active-Duty 
time--we're losing a huge number of people with a lot of 
talent, right about the 20-year level, when they become 
lieutenant colonels, or commanders--wouldn't it be logical to 
start the clock again for a lot of these people when they're 
commissioned, in terms of their 30-year career?
    General Cartwright. My sense is that, when we look at it, 
at what's going on today, that the shortfalls that we have, 
where we would like to have a little more capability than we 
do, are in the mid-grade officers and mid-grade enlisted. They 
really are--in Marine terms--the strategic corporals out there. 
Their decisions carry strategic consequence on the battlefield.
    Having a seasoned force in that area--and that talks to 
grade-shaping, and those types of activities, is to our 
benefit. We're looking at that, we're considering the options, 
we have made some adjustments in how long people can serve, and 
how we compensate them for serving longer, but I think you 
bring up a good point, and if confirmed, we'll take a look at 
that.
    Senator Webb. I would like the opportunity to pursue that 
at the subcommittee level.
    Chairman Levin. Thank you.
    Admiral Mullen. Mr. Chairman, can I just take 60 seconds to 
respond to that question?
    Chairman Levin. Try 30 seconds.
    Admiral Mullen. It's been my experience, Senator Webb, with 
the 20-year goal out there, from when you come in to when 
you're going to retire, is one that you really have to work 
hard to penetrate. I've seen many great line-of-duty officers 
who leave as lieutenants at the 20-year mark. So, I don't 
disagree with the possibilities here, but we, I think, would 
have to really come to grips with, how do we make the incentive 
beyond 20? I mean, significantly.
    Senator Webb. Let me clarify what I'm saying. You have 
someone who's 10 years enlisted, 10 years an officer, who 
maybe, when they get to the 30-year point is making lieutenant 
colonel, who conceivably could be flag officer. But they're 
topped out.
    Admiral Mullen. Right.
    Senator Webb. They're gone, and you're losing a great 
resource.
    Admiral Mullen. I would support that.
    Chairman Levin. Thank you.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Gentlemen, let me add my thanks for your service to our 
country. You're doing a terrific job, and I look forward to 
both of you being elevated to a different position, where you 
can provide even stronger leadership.
    Yesterday there was an announcement regarding foreign sale 
of arms. First of all, what comments can you make relative to 
the countries to whom a decision has been made, at least by the 
administration that's come into Congress, relative to those 
sale of arms? How much of an input did you gentlemen have in 
that decision, and how big a role did that decision play in 
this issue of regional stability that you allude to, Admiral 
Mullen?
    Admiral Mullen. Let me try to work it from the last 
question first, Senator Chambliss. It played a significant role 
in terms of regional stability, because I think we need to 
ensure that our friends in that area can be reassured and 
supported as we do in many places throughout the world.
    I can't give you a list of who's there, because I haven't 
seen it, but my specific involvement was tied to the ship piece 
of what I believe is in the package--I haven't seen the final 
package--but what I believe is in the package, specifically 
with respect to Saudi Arabia. I've worked that in the building, 
in terms of support. I've seen a list in the newspaper, but I 
can't respond--I just don't know in terms of the level of 
detail of all of the other countries that are actually in the 
package.
    Senator Chambliss. General Cartwright, any additional 
comments?
    General Cartwright. Senator, I have not been involved in 
those discussions. Obviously, if I'm confirmed, then I would 
have the opportunity to participate. But I would focus on the 
regional issues, and the stability and the balance that it 
either does, or does not, bring to the region.
    Senator Chambliss. Admiral Mullen, based on your comments 
to Senator Graham in response to his questions, would you 
consider Iraq to be the focal point of the global war on 
terrorism today?
    Admiral Mullen. Yes, sir. I think that al Qaeda in Iraq is, 
specifically, and not giving them a safe haven there. I'm also 
concerned about the reemerging safe haven they have in 
Pakistan, and that is clearly the focal point right now. But, I 
don't limit it to that, because al Qaeda is out and about in 
lots of places in the world.
    Senator Chambliss. That being the case, and also with your 
comments relative to the fact that we know that Iranians today 
are participating in the attacks against our soldiers on the 
ground in Iraq, is a military option against Iran, or is there 
a military option against Iran that is lurking out there?
    Admiral Mullen. I would hope that we could address this 
issue, and these issues about Iran, diplomatically. I think, as 
is always the case, for me, military force should be used as a 
step of last resort, and that's where I'd put it right now.
    Senator Chambliss. Let me switch gears a minute to 
Afghanistan, we talk a lot about Iraq, obviously, but after our 
initial success in Afghanistan, it's been necessary that we 
increase the size of the force structure there, a lot of 
activity on the ground and otherwise, in Afghanistan. Give us 
your quick summation of where we are, relative to the conflict 
in Afghanistan?
    Admiral Mullen. In reviewing, starting last September as a 
member of the Joint Chiefs of Staff, we started to look heavily 
at Iraq and Afghanistan, and we'd actually, in that review, and 
the Afghanistan piece, have looked for resurgence of the 
Taliban, coming out of the winter thaw, and a significant 
challenge with respect to that resurgence. That resurgence, 
based on what I thought was going to happen, to the level that 
we had predicted it would happen, and what has actually 
occurred, has not been as significant as I thought it would be.
    That said, I am concerned about its resurgence. Clearly, 
the forces there--and there are American forces, as well as the 
forces from NATO--are very important in moving ahead, and so 
it's not as bad as we had, or as I had seen it to be at this 
particular point. That said, it isn't going away, and it's 
something I think we're going to continue to need to address.
    Senator Chambliss. Are you comfortable with the speed with 
which the Pakistani military is moving against our enemies in 
Pakistan?
    Admiral Mullen. I'm extremely concerned about the safe 
haven which is being built in the Fa Ta region. I am moved in a 
positive direction that, in fact, President Musharraf has 
directed the Army to move in that direction. I know, having 
been there recently, that is a huge challenge for him. I 
honestly don't know, Senator, how fast they could react. I am 
concerned with the speed with which the safe haven is building 
up.
    Senator Chambliss. With regard to these force structure 
changes that we have inside of Iraq today, and the new strategy 
we're pursuing, if we're looking at taking down that force 
structure in April, based upon what you know today, are we 
accomplishing the mission that additional force structure was 
dedicated to?
    Admiral Mullen. Yes, sir. We are.
    Senator Chambliss. At this point in time, without knowing 
what's going to be said in this report next month, are we 
seeing the kind of positive results that would justify--
irrespective of whether or not we have the soldiers to go back 
in and replace those folks--are we justified in thinking that 
we can reduce the size of the force structure next spring?
    Admiral Mullen. Part of that is how much security do we 
have next spring? It's very difficult for me to answer that 
right now. The heart of the challenge right now, clearly is in 
Baghdad. General Petraeus has said, and I take him at his word 
in this regard, that he has no expectation that it will be 
sustained beyond the spring. I saw him say that as recently as 
yesterday.
    Senator Chambliss. What about the improvement of the Iraqi 
Army to step in behind us and maintain the security in those 
areas--particularly of Baghdad, that we have at this point in 
time, cleaned out, and are now holding?
    Admiral Mullen. The report is that it's moved well in some 
areas, and that in other areas it's uneven. In addition to the 
Iraqi security forces, General Cartwright talked about this 
earlier--key as well, is the development of the police force in 
Iraq.
    They've clearly made progress. In fact, the Iraqi security 
forces on the military, in some cases, are performing 
independent military operations, which is terrific. We're 
moving in the right direction here. In some areas, not as 
rapidly as we would like to be.
    Senator Chambliss. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Admiral Mullen, I congratulate you on your nomination.
    Admiral Mullen. Thank you, sir.
    Senator Ben Nelson. I believe you have the depth of 
knowledge and experience to lead us through these very 
difficult times to some conclusion on our mission and our 
transition to a new mission in Iraq.
    General Cartwright, you and Sandy have been a very vital 
part of our community in Omaha, and we're going to miss you. I 
want to thank you for putting together the Global Innovation 
and Technology Center in Omaha, which has invited community, 
private sector management, and others, to develop new 
strategies and innovations in our thinking in support of 
STRATCOM, and we appreciate that very much. It will be a legacy 
to, not only the community, but I think to our military.
    As we look at the September 15 date, then recognizing the 
realities of April, and given the fact that the President spoke 
last week about Iraq and said al Qaeda and Iraq 95 times in a 
very short period of time, shouldn't the mission be 
transitioning to fighting al Qaeda as soon as we possibly can? 
I know Senators Collins, Warner, and I and others felt that the 
surge should be focused in al Anbar and other areas where al 
Qaeda existed, rather than trying to intervene to create some 
sort of temporary situation in Baghdad to give the government a 
chance to catch it's breath, or as I think, General, you said 
some head room, to be able to do this.
    If the President said 95 times our threat in Iraq is al 
Qaeda, why wouldn't we be repositioning and transitioning as 
soon as possible if we know what's going to happen in April? 
Why wouldn't we be getting ready for that today, and transition 
the mission to fighting al Qaeda and supporting the government 
in helping develop their peacekeeping, their military, and 
police positions for security, and taking security of the 
border, and protecting our assets in Iraq? Why wouldn't we look 
to do that more immediately, rather than wait? Or will we, if 
the report on September 15th would justify it, would we then 
begin to transition our troops into that mission?
    Admiral Mullen. In the counterinsurgency that we're 
involved in, and I won't speak for General Petraeus, but my 
understanding of it is, principally we have to protect the 
people. Security for the Iraqi people is where that surge is 
focused and it is providing that. It is moving in that 
direction. We have a ways to go.
    Senator Ben Nelson. Will it be temporary or will it be 
permanent?
    Admiral Mullen. I don't know sir.
    But even in this counterinsurgency surge operation, the 
focus is also very much on al Qaeda. That is, and in fact, it 
is a combination of the tremendous men and women in the Army 
and the Marine Corps, in particular, out west in Anbar, 
combined with the strategic shift of the tribal leadership, 
which has created a much more secure environment in Anbar than 
existed as recently as 6 or 7 months ago. Whatever our mission 
might be, whether it's what we have right now or when it 
changes, an enduring piece of this is going to be focused on al 
Qaeda. I think that is now and it will be no matter what. We 
are making progress there.
    Senator Ben Nelson. We're making progress, but they keep 
growing in terms of their numbers and capabilities. So, under 
that theory, wouldn't we want to put more emphasis on that part 
of the surge? We supported going into al Anbar, we supported 
the counterinsurgency efforts, overall. What we didn't support 
was trying to intervene in somebody else's civil war. All the 
talk about who wins strikes me as being odd because I don't 
think you can ever win somebody else's civil war.
    They have to win this war. We have to help them win a 
peace. I think that's where our goal has to be. If al Qaeda is 
the biggest threat to--it's been described as the biggest 
threat to--the future of the Government in Iraq, I would think 
that we would be putting more emphasis, sooner--without having 
to wait until September 15 to decide to do that--because of the 
urgency of the moment.
    Admiral Mullen. My understanding Senator, is there's a 
tremendous amount of emphasis on this now. In fact, it's the 
Sunnis, in particular, in Anbar who are turning out al Qaeda.
    Senator Ben Nelson. With our help?
    Admiral Mullen. Yes sir, absolutely. It's a combination of 
things. Having made that strategic shift our way, it's made it 
much more difficult for them.
    Senator Ben Nelson. But isn't it also occurring somewhat in 
the north, in the Sunni regions as well?
    Admiral Mullen. Yes, sir.
    Senator Ben Nelson. Do we have sufficient troops in the 
north to help the tribal leaders fight against al Qaeda?
    Admiral Mullen. Everything I understand is, yes we do sir. 
We do. It's actually reasonably stable up there, with the 
exception of a couple spots.
    Senator Ben Nelson. Well then, why would there be a 
suggestion that al Qaeda is growing in its strength in Iraq?
    Admiral Mullen. My understanding is, clearly al Qaeda is 
growing in its strength in terms of the safe haven, in 
Pakistan, specifically. My assessment at this particular 
point--and I'd have to go back and do some research--but my 
assessment is that they are actually not growing in Iraq, that 
in fact, the intensity with which we're engaging them is severe 
and will continue to be severe.
    Senator Ben Nelson. I guess I'm still of the opinion that 
if we have them on the run, we ought to take them out and put 
whatever forces it takes to do that, because that's going to 
have a more enduring impact than trying to keep the temporary 
peace in Iraq for an Iraqi Government that is taking the next 
month off, while we continue to fight.
    Now, I've been a supporter of the benchmarks because I've 
always felt that we talk in terms of winning, losing, and 
gaining ground. What would you say, in terms of evaluating the 
success on the ground in Iraq, in terms of some metric? Are we 
20 percent toward our goal there, are we 30 percent, or 10 
percent, or 50 percent or more?
    Admiral Mullen. I couldn't give you a number, Senator. I 
just don't know. I know we're significantly better than we 
were. We're headed in the right direction. That's what the 
discussion is about--and I think Dave Petraeus had this right. 
It took us several months to get the 5th Brigade there, which 
got there in June. There's been significant positive steps 
taken in security since the 5th Brigade was there. We're on a 
campaign right now to continue that and that's why I think he 
deserves the time to see how far he can move this before we 
make judgments about where to go again, where to go next.
    Senator Ben Nelson. I agree with you in not setting an end 
date to how long our troops will be there, not to send the 
message to our enemies and adversaries as to what date we plan 
to withdraw or what our plans are. But I don't agree that we 
shouldn't begin the process of transitioning troops into a 
larger effort against al Qaeda at the present time. That's 
something we could begin doing now. We wouldn't have to wait 
until September 15. If the September 15 report says we ought to 
do it, we ought to do it with warp speed, recognizing the 
realities of how difficult it is to begin to move people into 
that effort.
    Admiral Mullen. Certainly.
    Senator Ben Nelson. I'll finish with this last question--if 
we did move to that kind of a mission rather than continuing to 
try to intercede in a civil war, would that result in a 
drawdown of troops?
    Admiral Mullen. Clearly, if we only did that, if we turned 
the security issue and the security challenge over to the Iraqi 
security forces.
    Senator Ben Nelson. But we would go ahead and continue to 
support the borders and our assets and the Iraqi Government and 
the military?
    Admiral Mullen. Yes sir, but it would amount, essentially 
to turning the security mission over to them and we would, 
clearly, focus on al Qaeda, and it would result in, I think, 
fewer troops.
    Senator Ben Nelson. A significant number or do we have any 
idea?
    Admiral Mullen. It would depend on the threat. It really 
would depend on the threat.
    If I can, just for 1 second, on the border issue. There are 
discussions about borders and keeping them secure--that is 
something I'm not enough of an expert, although I'm concerned 
about it, and I need to go study it--is historically, that's a 
real challenge, keeping borders closed, or securing borders. 
That discussion needs to be, I think, mindful of a significant 
amount of capability from wherever, whether it's the host 
nation or some other country that it would take to do something 
like that.
    Senator Ben Nelson. Thank you, and congratulations to both 
of you. I look forward to working with you.
    Admiral Mullen. Thank you, sir.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Martinez.
    Senator Martinez. Mr. Chairman, thank you very much.
    Admiral Mullen, General Cartwright, welcome to both of you 
and congratulations on the new undertakings that you'll be 
assigned to and asked to serve. I appreciate and thank both of 
you for serving at this difficult time for our Nation.
    In asking something fairly local, Senator Nelson and I both 
are Florida Senators, and are very concerned about the 
situation at Naval Station Mayport in Jacksonville, FL. 
Admiral, I know you and I have talked about this from time to 
time in your position as CNO. The question really has to do 
with the situation at Mayport and the viability of it into the 
future, relating to a disbursal of our nuclear carrier fleet on 
the east coast. I wanted to ask your position on the strategic 
disbursal of our Atlantic fleet carriers on the east coast, and 
if you agree that it is in our national interest to ensure that 
we maintain two nuclear carrier ports on the east coast of the 
United States?
    Admiral Mullen. I am, Senator, and I'm on the record more 
than once for this, very supportive of strategic disbursal of 
our carriers. I also consider the King's Bay, Mayport, 
Jacksonville hub a vital part of our, both strategic interests 
and key for, not just capability, but for our people for the 
future. As I look at what I think the challenges will be in 
recruiting and retaining, sailors--in particular--and their 
families for the long run, it's a great hub that I think we 
need to continue to invest in.
    Senator Martinez. Thank you. I appreciate that.
    Shifting to the broader issues that have been discussed so 
much here this morning, having to do with our situation in 
Iraq. I wanted to ask, perhaps both of you, to comment on this, 
if you would.
    One of the things that continues to concern many of us is 
the interference by Iran in the violence that takes place in 
Iraq. I know that last week there was an important diplomatic 
interaction, which I'm not sure in the past has yielded any 
benefits and perhaps it won't in the future as well, from a 
military standpoint. What can we do to better protect the 
borders of Iraq from intrusion by Iran and Syria? Having those 
two States continue to increase the violence, increase the 
weaponry, and the training for those who seek to continue to 
create violence in Iraq?
    Admiral Mullen. I think from the Iranian border perspective 
that it is vital for us to continue to try to make sure our 
forces, our security forces, coalition security forces, are 
engaged in, at every level--and our entire Government, 
actually--engaged at every level to stop the kinds of weapons 
which are coming across that border from coming in.
    I said earlier, I don't believe a military response is 
appropriate at this time. I would never take that off the 
table, with respect to Iran for the exact reason that you lay 
out. I think the diplomatic path needs to be visited, we need 
to continue to address it diplomatically, and in my view, it 
shouldn't necessarily just be through us or direct engagement. 
Iran has friends, needs, and supporters in large and 
significant countries that they're engaged with that also may 
offer avenues to bring pressure on Iran to cease providing this 
kind of capabilities.
    Senator Martinez. In other words, those countries that are 
involved with Iran, in trade and commerce and other ways that 
are important to Iran.
    Admiral Mullen. Yes, sir.
    Senator Martinez. That they should also manifest their 
opposition to their involvement.
    Admiral Mullen. Absolutely.
    Senator Martinez. General, is there anything you'd like to 
add on that?
    General Cartwright. The only thing that I would add, 
Senator, is at the tactical level, we should never cede our 
responsibility and ability to defend ourselves. If we find 
these adversaries in Iraq, and they're challenging our forces, 
we don't give up the right to go after them, number one. Number 
two, if we know with attribution who they are, then we ought to 
hold them accountable. First, through the discussion you just 
had. But, like the Admiral, I would not take military action 
off the table force, if all other means don't work.
    Senator Martinez. Again, being a Florida Senator, we are 
very interested in U.S. Southern Command (SOUTHCOM) and all 
that it does with our partners and neighbors in the Western 
Hemisphere. I just wanted to ask whether you felt that they 
have the sufficient forces and all the necessary equipment that 
they would need in order to fully exercise their mission? I 
think one of the great concerns is the potential for a mass 
migration situation emerging from Cuba, if that country should 
become destabilized.
    Admiral Mullen. Senator, you have a very active engaged 
commander down there, by the name of Admiral Jim Stavridis.
    Senator Martinez. Wonderful guy.
    Admiral Mullen. I hear from him constantly about what 
additional things I need to be doing to support them. We really 
are working hard to support that. We have the U.S.N.S. Comfort, 
the hospital ship down there.
    Senator Martinez. Right.
    Admiral Mullen. This summer, for several months, and she 
has seen thousands--50, 60, 70,000 patients on this trip in 
various countries. We have the global fleet station manifested 
by the high-speed vessel the U.S.S. Swift, which is engaging 
countries down there. We have our combatants, some of our 
combatants that are down there. In recent times, we have as 
much, if not more, capability deployed down there across all 
the Services, as we have in recent times. That's in recognition 
of what I think is a real need to be engaged and to stay 
engaged for the future.
    Senator Martinez. There's not been enough said about the 
Comfort and the wonderful job that they've been doing in the 
region. I've read some recent reports of their work in the 
Nicaraguan region and I think it's terrific they are there. The 
kind of good will that they are bringing and the kind of 
healing and hope that they're bringing to children and others 
in the region, I think, is commendable, sir.
    Admiral Mullen. Yes, sir. Thank you.
    Senator Martinez. It's a great thing.
    In addition to the obvious for SOUTHCOM, I'm also concerned 
about Colombia on Plan Colombia and the implementation of Plan 
Colombia, and the commitment that I feel is so important that 
we continue to have the improvement of the security conditions 
in Colombia, as a great regional partner and ally, and I wonder 
if you might comment on that. Again, I'd open it to both of you 
to comment.
    Admiral Mullen. Yes, sir.
    I think what Colombia has done in recent years has been 
extraordinary in terms of addressing the challenges that 
government had, in terms of the crime associated with the drug 
trade. That strategic support for that needs to continue.
    I've met with my counterparts--actually I've met with the 
last two Chiefs of Naval Operations--and, certainly pledged to 
continue that. It is still a huge challenge and I think we need 
to be very strong on that.
    General Cartwright. I would agree, but on this question and 
the previous question, the shortfall that probably worries me 
the most about SOUTHCOM is our ability to support their 
intelligence, surveillance, and reconnaissance needs. We have 
to improve that in order to help some of these nations help 
themselves.
    Senator Martinez. My time is up.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Martinez.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you.
    Thank you, gentlemen, for your service to our country.
    Admiral Mullen, I don't know you as well as I know General 
Cartwright, because I've had the privilege of working directly 
with him on all of the strategic stuff. But, your reputation is 
impeccable.
    Putting on my parochial and my national hat, as Senator 
Martinez has, let me just state for the record that one of your 
predecessors as CNO, Admiral Vernon Clark, said, 
``Overcentralization of the carrier port structure is not a 
good strategic move. The Navy should have two carrier-capable 
homeports on each coast.'' He went on to say, ``It is my belief 
that it would be a serious strategic mistake to have all of 
those key assets of our Navy tied up in one port.'' That was in 
response, for the record, specifically talking about the 
disbursal of the nuclear carriers in the Atlantic Fleet.
    Likewise, Secretary of the Navy, Gordon England, now Deputy 
Secretary of Defense has said on the record, ``My judgment is 
that dispersion is still the situation. A nuclear carrier 
should be in Florida to replace the U.S.S. John F. Kennedy to 
get some dispersion.''
    Senator Martinez and I have just had a meeting with the 
Secretary of the Navy, and he stated to us, in effect, the same 
thing. He has stated to us this morning that he has stated that 
for the record. I just don't have it in front of me. So, in 
light of that and your statement, and I'm going to paraphrase 
right here, ``I am very supportive of the strategic disbursal 
of our carriers.'' You then went on to say, Admiral, King's Bay 
and Mayport Complex is key for our strategic posture, as well 
as key for our Navy personnel.
    Admiral Mullen. And Jacksonville.
    Senator Bill Nelson. Jacksonville, of course, Jacksonville 
Naval Air Station. I wish we were still talking about Cecil, 
but we can't be talking about that any more.
    Admiral Mullen. Yes, sir. I, actually, was working for 
Admiral Clark when he said that. I agreed with what he said 
then, I agree with it now.
    Senator Bill Nelson. Okay. Let me move on.
    One of the sore points on this committee, Admiral, was in a 
response to a question from Senator Levin directly to General 
Eric Shinseki, the Army Chief of Staff--and this was, I believe 
prior to the war, when Senator Levin asked this question--
Senator Levin asked, for the occupation, how long and how many? 
General Shinseki said, ``Several hundred thousand for several 
years.'' We know that the Bush administration disagreed with 
that assessment and, indeed, the Secretary of Defense did not 
even show up at General Shinseki's retirement. So, that sticks 
in our craw here. What we want to know, and we believe--because 
we believe in you--Admiral, as the principle uniform military 
advisor to the President, how would you manage and present the 
full range of advice presented to you by members of the JCS as 
General Shinseki had done? Let's throw in the combatant 
commanders, as well.
    Admiral Mullen. I have spent an awful lot of my time in the 
last 2 years, particularly over the last year, in the tank with 
my counterpart Joint Chiefs. In particular, we have spent a 
great deal of effort focusing --since last fall--on how we 
should move ahead. General Pace has led that effort very well. 
We have all had voices, we've all been very much heard, not 
just with him, but also with the Secretary of Defense, who 
meets with us in that tank regularly, as well as a meeting we 
had with the President. That model, that directness, and the 
frankness, is one to which I subscribe.
    What I would tell you about what I would tell him is the 
full range of options as frank as I can be and when, certainly, 
asked here by you or other members, I would do the same.
    Senator Bill Nelson. Thank you.
    Admiral, it's my understanding that it's your intention to 
delegate responsibility over the strategic forces to General 
Cartwright. What is your intention there?
    Admiral Mullen. I haven't reached an intention on that, 
yet. There's nobody that's better prepared to do that and as we 
look at dividing up the workload, that makes a lot of sense to 
me. But, he and I have not spent a great deal of time talking 
about who's going to do what.
    So my answer is, I don't know how that comes out. 
Certainly, it makes sense to me.
    Senator Bill Nelson. I have been told that was in the 
works. It made a lot of sense because that fellow knows an 
awful lot about strategic forces.
    Let me ask you, what about, for example, this relationship 
with Russia, and Russia now having thrown up a blockade with 
regard to the opportunities for joint cooperation on such a 
thing as national missile defense. How would you approach that?
    Admiral Mullen. Clearly, that's something that I would lean 
on General Cartwright for a great deal because of his 
background and experience. The only reason I'm a little 
hesitant, there will certainly be issues and levels that I'll 
have to engage on in that portfolio. I am a supporter of having 
a missile defense capability. Ballistic missiles are 
proliferating. Clearly, there are challenges and existent 
policy discussions about how that's going to actually be 
implemented. I suspect at some point in time, I certainly would 
be engaged, if I get confirmed for this job.
    Just briefly, back to your first question. If it isn't 
going to be that way, I'll let you know, in terms of General 
Cartwright's responsibilities.
    Senator Bill Nelson. Okay.
    Let me ask either of you, General Cartwright has, I know, 
specific knowledge on these questions--the Stockpile 
Stewardship Program of our nuclear stockpile and the question 
is, that we are in this phase-down of reducing considerably the 
number of nuclear weapons we have--both us and Russia. Does the 
success of that program continue to support the moratorium on 
nuclear weapons testing?
    Admiral Mullen. From my perspective, yes sir, it does. I'll 
let General Cartwright answer further.
    Senator Bill Nelson. All right. Let me throw in an 
additional question for you, then. If the Stockpile Stewardship 
Program can support a new replacement warhead, is there any 
doubt about its ability to support the Life Extension Program 
as well?
    General Cartwright. This issue kind of goes to the heart of 
whether or not we do engineering to do what are called Life 
Extension, which are updates to current weapons. The challenge 
there is the weapons that we have were not designed to be 
updated, so you're trying to take apart something that really 
wasn't designed to be taken apart--versus what is called now 
the reliable replacement option, which takes new technology, 
same form-fit function to the weapon, same delivery systems, et 
cetera, but brings in modern manufacturing capabilities, 
engineers in safety, security, and reliability at the front 
end, and gives us the opportunity, probably, to reduce, 
particularly those weapons that are not in the operational 
stockpile, but those that are in there for spares, backup, et 
cetera, reduce that stockpile significantly.
    The replacement options strength is its focus on safety and 
security and its ability to reduce the stockpile that we have 
today. That, to me, makes me lean more towards the reliable 
replacement over the life extension. The value that we have out 
of Stewardship was really characterized in understanding the 
character of our current stockpile, its life and other 
attributes, and what we could do about them, without having to 
go back to aboveground or underground testing.
    Senator Bill Nelson. Okay.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Admiral and General, thank you for your service and your 
willingness to answer the call. You both have extraordinary 
records, and we're pleased that you're willing to take on, what 
are very difficult and challenging jobs, as is evidenced by the 
way in which your predecessor was treated in the job.
    As the ranking member of the Seapower Subcommittee, I have 
to express my displeasure at the way in which General Pace was 
treated. His departure had nothing to do with his performance 
or competence and everything to do with the politics of an 
unpopular war. I think it's also unfortunate, since he was the 
first marine to serve as the Chairman of the Joint Chiefs, for 
that great institution, too.
    But nonetheless, I wish him well on his future endeavors 
and I hope that you are treated better than he was, as you 
enter this very difficult and challenging job. We look forward 
to working with you and know that we have a lot of heavy 
lifting ahead of us.
    Admiral Mullen, you will be our country's highest ranking 
military officer. The July 2007 NIE serves as a constant 
reminder that al Qaeda and other radical Islamist groups 
continue to pose a threat to our security. So as a Nation at 
war, your nomination comes at a very critical time. Given the 
environment that we live in today, what do you consider to be 
the biggest challenges facing our national security?
    Admiral Mullen. The stability in the Middle East and, we 
talked a lot about Iraq, Afghanistan, and al Qaeda. That's part 
of that as well. We must get al Qaeda on the run and keep them 
on the run.
    The stress that our ground forces are going through, 
specifically because of the number of deployments, number of 
rotations, and the prospect for more. That they are, in fact, 
away a lot more than they are home. The stress that not just 
puts on individuals who are performing magnificently in 
uniform, but also families. The balancing of the global 
responsibilities we have, given we have ground forces that are 
essentially very ready and exceptionally capable in the 
counterinsurgency world, but we've let other mission 
capabilities, certainly training and equipping and other areas 
has degraded. There will continue to be global challenges that 
we need to balance our strategic risk with respect to that.
    Specifically, with respect to al Qaeda, Senator, since you 
brought it up. They are still the essence of the most 
significant threat we have. They have a safe haven now. They 
have leadership, which is reinvigorated. They have lieutenants 
back in place. They clearly have a stated challenge to hit us. 
I applaud the efforts of many in this country and throughout 
the world that have put us in a position where we have not been 
struck again, but it's not because they don't have the intent 
to do so.
    Senator Thune. Would you say, Admiral, that it is the same 
al Qaeda in Iraq and Afghanistan that we are fighting?
    Admiral Mullen. Yes, sir.
    Senator Thune. In other words, they are part of the same 
global terrorist network, same group of killers with the same 
intention and objective, and that is to figure out ways to 
create regional instability and to kill Americans?
    Admiral Mullen. Yes, sir.
    Senator Thune. There was a question that was asked earlier, 
I think by the Senator from Nebraska, regarding al Qaeda in 
Iraq and I want to come back to that for just a minute, because 
frankly, I wanted to make an earlier point about there's been a 
lot said, that we need to go fight al Qaeda in Afghanistan and 
somehow that's where the war is. It seems to me, at least, that 
wherever al Qaeda is, is where the war is. Clearly, they are in 
Iraq.
    But, are they also, their presence in Baghdad, as well as 
in Anbar? There's been a lot of discussion that if we're going 
to go after al Qaeda we have to go into Anbar, that's where we 
ought to be directing our efforts. What's the level and the 
extent of the presence that al Qaeda has today in the Baghdad 
area?
    Admiral Mullen. They are principally west. I'd have come 
back to you about the specific level that's there, but the 
major concern for where al Qaeda in Iraq is has been west. In 
the Sunni, both villages and certainly provinces.
    [The information referred to follows:]

    Admiral Mullen. [Deleted.]
    General Cartwright. [Deleted.]

    Senator Thune. Another question I wanted to ask has to do 
with, you had stated in your advance policy questions, that one 
of the most important actions that has to be taken to mitigate 
and correct our lack of strategic depth is modernization across 
all the Services. ``Much of our equipment''--this is your 
quote--``is approaching or is at the limits of its service 
life. Replacing aging equipment with modern systems and 
integrating new capabilities will ensure our armed services 
remain preeminent.''
    The Services, obviously, are faced with tough choices 
because we have near-term requirements balanced against long-
term investments, and ongoing operations with the military 
modernization.
    When faced with the budgetary constraints that we're forced 
to spend on today's forces, rather than invest in tomorrow's, I 
guess I'd be interested in getting your perspective about how 
we strike that balance. Abraham Lincoln once said, ``You cannot 
escape the responsibility of tomorrow by evading it today.'' 
So, how do we balance our immediate needs against our long-term 
modernization so that we're prepared to meet the threats, not 
only of today, but also in the future?
    Admiral Mullen. We are, in fact, strategically at a very 
significant time--because we are, all the Services are, 
replacing equipment that was bought in the 1980s with the 
buildup at that time.
    So, each Service is moving to modernize through investment 
in equipment for the future. By in large up to now, most of the 
cost of war has been handled in the supplementals. Which also 
includes some investment in modernization, as it should, 
because we are wearing this gear out, in some cases, 10 to 20 
times faster than we expected to wear it out.
    The concern I have is over the long-term, as we take what 
has been the supplemental, embed that in the base budget, is 
will the resources be there in order to modernize? It's back to 
the rebalancing piece and the challenges that exist globally. I 
would have great concern about a precipitous drop in the 
baseline defense budget, given the strategic environment in 
which we're living.
    I know, clearly the ground forces are going through 
tremendous challenges because they're engaged in a war, they're 
trying to transform, their equipment is wearing out, and 
they're trying to modernize. In the Army's case, they're trying 
to modularize as well. The Air Force and the Navy are 
experiencing challenges with respect to equipment, airplanes, 
in particular, that are wearing out, and some ships, in the 
case of the Navy's point. Recapitalizing there is a real 
challenge, as well.
    We've also, the Air Force and the Navy, in particular, have 
felt enormous pressure in the budget, in terms of supporting 
what's going on with respect to the war. So that's kind of a 
quick assessment of where I think we are and what the 
challenges are, and they're significant.
    Senator Thune. Would it be helped by a higher increased 
top-line in the defense budget?
    Admiral Mullen. Yes sir, it would. I'm not someone that 
says, ``Just give me more money, everything will be okay.'' It 
has to do with good stewardship of the money that we have, in 
addition to recognizing the strains that we're under, at a 
really critical time, and doing that well.
    Senator Thune. One other question I had, has to do with, 
DOD has been pushing for a variety of authorities and increases 
in programs to engage other militaries. Is there a well thought 
out strategy behind this effort? Could you discuss these 
alleged problems between you and the State Department on 
Section 1206, train and equip programs? Because that does seem 
to be a way in which we can stretch our resources further, by 
working and engaging with other militaries.
    Admiral Mullen. I agree that it is a way to do that, to 
work with State. We've done that, in great part, and that we 
need to continue to do that for the future.
    I talked earlier about surging the other arms of our 
Government. I think the future is going to be much more about 
the other arms of our Government, DOD and State specifically, 
or State and Agriculture working together in ways that we 
haven't necessarily in the past, because of the global 
challenges that we have. So I applaud the move towards section 
1206. It's a much more robust program than it's been and I 
think we will need to continue to make it so in the future.
    Senator Thune. Thank you very much, and my time has 
expired. General, I didn't give you a chance to talk much, but 
thank you again for you service, your willingness to serve, and 
we look forward to working with you.
    Mr. Chairman?
    Chairman Levin. Thank you, Senator Thune.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    Congratulations to both of you on your nominations and God 
bless you and your families for your service to our country.
    To kind of segue way off of Senator Thune's comments, I'd 
like to spend a little bit of time talking about contracting. 
We obviously have an explosion of contracting that has 
occurred. In 2006, we had $151 billion of service contracts 
that the military embraced. That's up from $80 billion in 1996. 
That's an exponential increase.
    The legal status of these contractors is murky and I will 
tell you, after 6 months of looking at this with some 
discipline, I am confident that the accountability is absent 
without leave. I, after going to Iraq and spending some time 
there with the contracting part of this operation, it's clear 
to me that contracting has encountered a head-on collision with 
the culture of command in a combat environment.
    I would certainly appreciate your take on how we begin to 
engrain in our military training for commanders, the 
responsibility of contractor oversight. The model that the 
military has worked with for years, in terms of a contracting 
representative that is present, is not working. Because there 
is turnover there, there is not any kind of long-term 
specialized training, and ultimately at the end of the day--and 
I will not identify which commander said this to me, but I can 
assure you that there were a number of comments made that 
caused great consternation, like, ``It may have cost $10 
billion, but I wouldn't have cared if it cost $15 billion. I 
needed the stuff when I needed it.''
    There's this sense that, the commanders have their military 
mission, which I'm very respectful of. They want to accomplish 
that mission. They are really not as concerned about who's 
watching the contractors, who has responsibility for the 
contractors, what kind of accountability are we putting in 
place. Until we hold those commanders responsible, I have a 
feeling we're going to be, it's going to be all foam and no 
beer in terms of what we're really accomplishing, in terms of 
contractor accountability and oversight of these tax dollars.
    I would appreciate your take on how we can get to, what I 
think, is the nub of the matter and that is someone losing 
their command or not getting promoted because of failure to 
oversee contracts in a responsible way.
    Admiral Mullen. Senator, in trying to respond to Senator 
Thune--I'm very mindful of the challenges with resources. 
Responsible stewardship of the taxpayers dollars is a high 
priority for me, has been for a long time. It is a significant 
amount of money. If you've been looking at this for 6 months, 
you know a great deal more about it than I do, specifically. I 
would have to do some research to come back with a more 
thorough answer.
    That said, I will say from a warfighting standpoint, from 
an operational standpoint, my expectations for those in uniform 
who are on their mission is not to spend a great deal of time 
on that. I, actually, resonate with whoever said that. I'm not 
happy to, I'm not arguing we should act that way, but those 
individuals are so focused on carrying out the mission, that 
they need it when they need it. We need to do this responsibly, 
and have mechanisms in place--and it's an extraordinary number 
of contractors as you have pointed out.
    That said, the military commanders I have engaged with 
since 2004 in Iraq and Afghanistan, but particularly in Iraq, 
have been very supportive of the support that they've received 
from the contractors. There's probably a great deal of work 
that needs to be done here, but that a warfighter would respond 
that way is not a surprise to me. I'm not sure that that's not 
the right answer.
    Senator McCaskill. I guess then that really is kind of part 
of the problem. I'm a little concerned that I would know more 
about it than you would, honestly, since we have more 
contractors on the ground than we have military. It worries me 
that this is not further up, and I have a man from Missouri who 
was kidnapped as part of a convoy attack last November. We've 
not heard from him since a video in January. If you look at 
that contractor and what was going on, the way they were hiring 
Iraqis, the way they were firing Iraqis, what they were paying 
Iraqis, the weapons that they were caught with, the weapons 
that were stolen, that were then sold back to them. What can 
happen on the ground with these security contractors, in terms 
of undermining our relationship with the Iraqi people.
    I mean, we're spending a lot of time worrying about PRTs, 
we're spending a lot of time about establishing a level of 
trust with the Iraqi people that can be undermined, in an 
instant, by a security guard that shoots a body guard of the 
Vice President of the country. Or that the Iraqis that go back 
and then are part of a convoy attack. I just, until someone at 
the highest levels of the military embraces the idea that we 
are now fighting this war with private contractors, in terms of 
logistic support.
    My dad peeled potatoes in World War II. We're not going to 
have military guys peeling potatoes in the future. We're going 
to have contractors peeling potatoes. I understand that there's 
cost savings that can be realized there, but we haven't 
realized them in this war. This war has cost more than it 
should have because of our inability to get a handle on 
contractors.
    I get it that you relate to that commander wanting to fight 
the military mission, but somewhere in the chain of command, 
someone higher than a major, somebody that has the kind of 
authority you all have, is going to have to take responsibility 
for promoting, demoting, and disciplining the military for 
their failure to oversee these contracts or they'll never get 
fixed.
    Admiral Mullen. Please don't take what I said, in terms of 
not being supportive, that this, what you just described needs 
to be done. We have moved tens of thousands of contractors into 
theater very rapidly. So I certainly understand your concern. 
It's an area that I owe you a better answer to, and I'll come 
back and get it to you.
    [The information referred to follows:]

    Admiral Mullen. You raise valid points regarding contracting and 
contractor management in Iraq. The Department takes seriously its 
responsibility for management and oversight of its contracts, 
regardless of where they are written and where they are executed. The 
growth in contractor support of our forces in Iraq is a reflection of 
broader trends in the Department towards increased contractor support 
of our military due to post-Cold War force reductions. This growth has 
presented challenges to the Department in terms of visibility, 
management, and oversight of contracts and contractor personnel 
supporting our forces in forward areas such as Iraq.
    The Department has undertaken numerous initiatives and actions to 
improve its ability to manage and oversee contracts and contractor 
personnel in these forward areas.
    One key action has been the formation of the Office of the 
Assistant Deputy Under Secretary of Defense for Program Support within 
the Office of the Deputy Under Secretary of Defense for Logistics and 
Material Readiness. This office's mission is to establish and oversee 
the program for managing contractor personnel in forward areas, per DOD 
Instruction 3020.41, and to provide direction in other areas to support 
more effective and efficient geographic combatant commander logistics 
and material readiness needs. Key elements of its program include: 1) 
Establish and maintain a policy framework to govern management of 
contractor personnel in forward areas; 2) Develop and implement the 
Synchronized Pre-Deployment and Operational Tracker (SPOT) Program for 
contractor personnel tracking and accountability in forward areas; 3) 
Establish deployable joint contracting planners to be co-located with 
and report to the combatant commanders; 4) Establish a specialized 
group of acquisition planning and execution staff to augment our 
current deployable contingency contracting capability; 5) Develop 
training and education programs for planning and managing contracting 
services and contractor personnel and incorporation of these programs 
into DOD leadership programs; and 6) Establish a ``Lessons Learned'' 
program. The Program Support Office program will respond to 
requirements in Section 854 of the National Defense Authorization Act 
for Fiscal Year 2007 that require the Department to develop joint 
policy on requirements definition, contingency program management and 
contingency contracting, including designating General Officer/Flag 
Officer/Senior Executive Service (GO/FO/SES) level personnel with 
responsibility for these areas during contingency operations. 
Presently, a senior commissioned officer has been designated as the 
Head of the Contracting Activity for the Joint Contracting Command-
Iraq/Afghanistan (JCC-I/A). This individual reports directly to the 
Multi-National Forces-Iraq and Afghanistan Commander, who reports 
directly to the U.S. Central Command Combatant Commander. Further, a 
clear line of authority and chain of command has been established for 
the JCC-I/A, focused on joint capabilities and policy execution. This 
contracting oversight structure is working well. Complete details of 
DOD's comprehensive plan for improving management and oversight of 
contracted support will be forthcoming in the upcoming interim report 
to Congress on the implementation status of section 854 requirements.
    To enable the Department to effectively deliver equipment and 
services to meet warfighter needs, acquisition policies and procedures 
have been established under the procurement umbrella of the Federal 
Acquisition Regulations (FAR). The FAR is supplemented by the Defense 
Federal Acquisition Regulation (DFAR), and further defined by DOD 
Directives, Instructions, Regulations, and Publications to satisfy 
specific and unique contracting warfighter requirements. For example, 
the Department issued a rule creating a new FAR/Defense Federal 
Acquisition Regulation Supplement (DFARS) Part 18, ``Emergency 
Acquisitions,'' which centralizes existing flexibilities available 
under current law and facilitates expedited acquisition of supplies and 
services in an emergency. The Department has also made significant 
progress on a proposed FAR section entitled, ``Contractor Personnel in 
a Theater of Operations or at a Diplomatic or Consular Mission.'' This 
section addresses the issues of contractor personnel who provide 
support to the mission of the U.S. Government in a theater of 
operations outside the United States but are not covered by the DOD 
clause for contractor personnel authorized to accompany the deployed 
troops. The Department is awaiting final approval of the proposed FAR 
clause from the Office of Federal Procurement Policy.
    To help our Contingency Contracting Officers (CCOs) better 
understand the myriad of new initiatives, a Joint Contingency 
Contracting Community of Practice was created to promote knowledge 
sharing across organizational boundaries. This collaborative tool 
serves as a central repository for DOD contingency contracting learning 
and job support assets, including policy and guidance information, 
after-action reports, predeployment information, and related knowledge 
to promote increased job performance. A Joint Contingency Contracting 
Summit is held quarterly to foster innovative ideas and solutions to 
increase support to our warfighters, identify strategic partnership 
development opportunities, and promote a strategic outreach and 
communication plan to increase awareness of these valuable tools and 
resources.
    The recent creation of the Emergency Procurement DFARS Committee is 
helping to develop and implement initiatives that will allow our CCOs 
to effectively and efficiently respond to contingency requirements. As 
part of this committee, a Joint Contingency Contracting Working Group 
has developed a DOD Contingency Contracting Guide that will be 
incorporated into DFARS Part 18, Procedures, Guidance, and Instructions 
(PGI). This guide is intended to provide practical advice as well as 
reminders of policies that affect contracting in contingency 
operations. In conjunction, we have also developed a pocket-sized CCO 
handbook and compact disk that provide the essential information and 
tools necessary to operate and train effectively in the joint 
environment. Both the guide and handbook are useful tools that help us 
standardize joint contingency contracting operations.
    One of the most significant accomplishments to date to ensure 
jointness and cross-service coordination in the area of contingency 
contracting is the formulation of doctrine. A Joint Contracting Writing 
Team is working to develop joint doctrine to ensure our contingency 
contracting troops have clear and unambiguous guidance in the field. 
This joint publication, titled, ``Contracting and Contractor Management 
in Joint Operations,'' provides the combatant commanders, subordinate 
Joint Force Commanders, and Service component commanders with 
standardized guidance and information related to integrating 
contracting and contactor management into joint operations. A draft of 
the doctrine is currently being staffed.
    The Department continues to aggressively look for ways to improve 
the efficiency and effectiveness of contracted support to the 
warfighter in forward areas.
                                 ______
                                 
    General Cartwright. You raised a myriad of issues regarding 
contracting and contractor management in Iraq. The Department takes 
seriously its responsibility for management and oversight of its 
contracts, regardless of where they are written and where they are 
executed. The growth in contractor support of our forces in Iraq is a 
reflection of broader trends in the Department towards increased 
contractor support of our military due to post-Cold War force 
reductions. This growth has presented challenges to the Department in 
terms of visibility, management, and oversight of contracts and 
contractor personnel supporting our forces in forward areas such as 
Iraq.
    The Department has undertaken numerous initiatives and actions to 
improve its ability to manage and oversee contracts and contractor 
personnel in these forward areas.
    One key action has been the formation of the Office of the 
Assistant Deputy Under Secretary of Defense for Program Support within 
the Office of the Deputy Under Secretary of Defense for Logistics and 
Material Readiness. This office's mission is to establish and oversee 
the program for managing contractor personnel in forward areas, per DOD 
Instruction 3020.41, and to provide direction in other areas to support 
more effective and efficient geographic combatant commander logistics 
and material readiness needs. Key elements of its program will include: 
1) Establishing and maintaining a policy framework to govern management 
of contractor personnel in forward areas; 2) Development and 
implementation of the Synchronized Pre-Deployment and Operational 
Tracker (SPOT) Program for contractor personnel tracking and 
accountability in forward areas; 3) Establishment of deployable joint 
contracting planners to be co-located with and report to the combatant 
commanders; 4) Establishment of a specialized, specially selected group 
of acquisition planning and execution staff to augment our current 
deployable contingency contracting capability; 5) Development of 
training and education programs for planning and managing contracting 
services and contractor personnel and incorporation of these programs 
into DOD leadership programs; and 6) Establishment of a ``Lessons 
Learned'' program. The Program Support Office program will respond to 
requirements in section 854 of the National Defense Authorization Act 
for Fiscal Year 2007 that require the Department to develop joint 
policy on requirements definition, contingency program management and 
contingency contracting, including designating GO/FO/SES level 
personnel with responsibility for these areas during contingency 
operations. Presently, a senior commissioned officer has been 
designated as the Head of the Contracting Activity for the Joint 
Contracting Command-Iraq/Afghanistan (JCC-I/A). This individual reports 
directly to the Multi-National Forces-Iraq and Afghanistan Commander, 
who reports directly to the U.S. Central Command Combatant Commander. 
Further, a clear line of authority and chain of command has been 
established for the JCC-I/A, focused on joint capabilities and policy 
execution. This contracting oversight structure is working well. 
Complete details of DOD's comprehensive plan for improving management 
and oversight of contracted support will be forthcoming in the upcoming 
interim report to Congress on the implementation status of section 854 
requirements.
    To enable the Department to effectively deliver equipment and 
services to meet warfighter needs, acquisition policies and procedures 
have been established under the procurement umbrella of the Federal 
Acquisition Regulations (FAR). The FAR is supplemented by the Defense 
Federal Acquisition Regulation (DFAR), and further defined by DOD 
Directives, Instructions, Regulations, and Publications to satisfy 
specific and unique contracting warfighter requirements. For example, 
the Department issued a rule creating a new FAR/Defense Federal 
Acquisition Regulation Supplement (DFARS) Part 18, ``Emergency 
Acquisitions,'' which centralizes existing flexibilities available 
under current law and facilitates expedited acquisition of supplies and 
services in an emergency. The Department has also made significant 
progress on a proposed FAR section titled, ``Contractor Personnel in a 
Theater of Operations or at a Diplomatic or Consular Mission.'' This 
section addresses the issues of contractor personnel who provide 
support to the mission of the U.S. Government in a theater of 
operations outside the United States but are not covered by the DOD 
clause for contractor personnel authorized to accompany the deployed 
troops. The Department is awaiting final approval of the proposed FAR 
clause from the Office of Federal Procurement Policy.
    To help our Contingency Contracting Officers (CCOs) better 
understand the myriad of new initiatives, a Joint Contingency 
Contracting Community of Practice was created to promote knowledge 
sharing across organizational boundaries. This collaborative tool 
serves as a central repository for DOD contingency contracting learning 
and job support assets, including policy and guidance information, 
after-action reports, predeployment information, and related knowledge 
to promote increased job performance. A Joint Contingency Contracting 
Summit is held quarterly to foster innovative ideas and solutions to 
increase support to our warfighters, identify strategic partnership 
development opportunities, and promote a strategic outreach and 
communication plan to increase awareness of these valuable tools and 
resources.
    The recent creation of the Emergency Procurement DFARS Committee is 
helping to develop and implement initiatives that will allow our CCOs 
to effectively and efficiently respond to contingency requirements. As 
part of this committee, a Joint Contingency Contracting Working Group 
has developed a DOD Contingency Contracting Guide that will be 
incorporated into DFARS Part 18, Procedures, Guidance, and Instructions 
(PGI). This guide is intended to provide practical advice as well as 
reminders of policies that affect contracting in contingency 
operations. In conjunction, we have also developed a pocket-sized CCO 
handbook and compact disk that provide the essential information and 
tools necessary to operate and train effectively in the joint 
environment. Both the guide and handbook are useful tools that help us 
standardize joint contingency contracting operations.
    Probably one of the most significant accomplishments to date to 
ensure jointness and cross-service coordination in the area of 
contingency contracting is the formulation of doctrine. A Joint 
Contracting Writing Team is working to develop joint doctrine to ensure 
our contingency contracting troops have clear and unambiguous guidance 
in the field. This joint publication, titled, ``Contracting and 
Contractor Management in Joint Operations,'' provides the combatant 
commanders, subordinate Joint Force Commanders, and Service component 
commanders with standardized guidance and information related to 
integrating contracting and contactor management into joint operations. 
A draft of the doctrine is currently being staffed.
    The Department continues to aggressively look for ways to improve 
the efficiency and effectiveness of contracted support to the 
warfighter in forward areas.

    Senator McCaskill. That would be great. I appreciate that 
very much.
    I would also appreciate a specific answer about the man 
from Jackson County, Missouri that was with the Crescent 
Company, five of them were kidnapped back last November in a 
convoy attack that--what I've read about it, it's clear that 
some of the Iraqis that had worked for this company were part 
of the attacking group. The implications there, obviously I'm 
very concerned about this Missourian, who has not been heard 
from, but if you look at what happened, it is anecdotal, but it 
is symptomatic of the kind of problems that we have with some 
of these security companies that are doing so much. They're 
carrying weapons in the battlefield.
    Admiral Mullen. Yes, ma'am.
    [The information referred to follows:]

    Admiral Mullen. [The information was provided to the committee in 
classified form.]
    General Cartwright. [The information was provided to the committee 
in classified form.]

    Senator McCaskill. They are shooting people in the 
battlefield. They are killing Iraqi citizens sometimes. I think 
we have to really do a much better job of getting a handle on 
all that.
    Thank you all, very much.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Sessions.
    Senator Sessions. Thank you, Chairman Levin.
    Thank you gentlemen, we appreciate your service to your 
country. I've gotten to know both of you over the years and 
have respected your work and believe you're ready to assume 
these big responsibilities.
    General Cartwright, we have really worked together a lot on 
the Strategic Forces Subcommittee, of which I am now ranking 
member, and formerly chaired, and you were, as Strategic 
Commander, we did a lot of work together.
    I won't ask some of the questions I could ask about that 
because those are matters that I think we've discussed and we 
have some idea about.
    Admiral Mullen, you mentioned something in one of the 
answers to the advance policy questions, that you thought 
perhaps the most significant mistake we've made in this Iraq 
effort, was that we did not fully integrate all elements of 
U.S. national power in Iraq. I think that is a big problem for 
us. For example, it's not the military's primary 
responsibility, is it, to work with the Iraqi Government to 
deal with the political problems they are facing. That's not 
your primary responsibility, that's the State Department's 
primary responsibility.
    Admiral Mullen. Yes, sir, it is.
    Senator Sessions. Likewise, it's not the military's 
responsibility to get the water and electricity operating or 
the economy moving.
    Admiral Mullen. Yes, sir.
    Senator Sessions. Or the agricultural products being 
produced better.
    So, we've created this situation in which the military, in 
my way of thinking, is the one entity that works in Iraq. You 
had to take over responsibilities that should not really be 
yours. Will you press that issue?
    Admiral Mullen. Yes sir, I will.
    Senator Sessions. I would encourage you to do so and I also 
think, perhaps, that General Lute's appointment maybe could 
assist you. He's a National Security Advisor for Iraq. One of 
the things that I understand the President wants him to do is 
make sure that other agencies are all working together 
effectively.
    Admiral Mullen. Yes, sir. I understand that is one of his 
principle responsibilities and I very much look forward to 
working with him in that regard. I have sat at the table for 
the last couple years, and been very concerned about the entire 
interagency process and I haven't been at the interagency 
table. Certainly if confirmed, I'll have an opportunity to do 
that. I can't just offer complaints, I'm going to have to offer 
some solutions, as well. But we all believe that we need to 
move forward in that regard.
    Senator Sessions. I believe the military has done a really 
fine job in Iraq. We've made some errors.
    Admiral Mullen. Sure.
    Senator Sessions. We can improve as we go forward, but a 
lot of the problems are, that we talk about, such as Senator 
Levin emphasizes the political solution is not primarily the 
military's responsibility. It's really the State Department's 
responsibility.
    Admiral Mullen, you mentioned in some of your statements, 
about the time you received this nomination that you were 
concerned about the Army. You are a Navy person, so let me ask 
you, will you be alert to the stresses on the Army? Will you be 
quick to respond to the legitimate concerns that are out there? 
They're doing better in many ways than I would have imagined.
    Admiral Mullen. They are.
    Senator Sessions. They are, reenlistment is still good.
    Admiral Mullen. Yes, sir.
    Senator Sessions. The morale is still good, but we're 
asking an awful lot out of them. What are your concerns there?
    Admiral Mullen. The Army and Marine Corps--they have been 
absolutely extraordinary, and their morale is good. I've seen 
that when I visit them in theater. Everyone that comes back, as 
recently as last week, reports that same that their morale is 
exceptionally good and they are executing at a level that makes 
us all proud, in this All-Volunteer Force.
    I am concerned about the number of deployments, the time 
away, in fact, even when they are home there's training 
associated with that. So they spend weeks, if not months, out 
of their own house, again, away from their families. I believe 
we have to relieve that.
    As CNO, I have spent a great deal of my time focused on 
this for my sailors and their families, and I assure you if I'm 
confirmed as Chairman, I will do the same for all our forces, 
particularly the ground forces, who are bearing the brunt of 
this war.
    Senator Sessions. I couldn't agree more. I say to General 
Cartwright, I think we do need to think about those soldiers 
out there.
    Have you had the opportunity, Admiral Mullen and General 
Cartwright, to read the counterinsurgency manual that General 
Petraeus has produced? You may not have had a thorough 
opportunity to, but have you read that?
    Admiral Mullen. I have read, in detail, the key aspects of 
counterinsurgency, yes, sir.
    Senator Sessions. Most of us sit here and we respond to the 
daily headlines in the media. Would you agree that it is an 
important thing for American people and this Congress to 
understand that there are principles of defeating an 
insurgency, and that sometimes it takes time?
    Admiral Mullen. It does take time.
    Senator Sessions. All right. Divide the enemy, to deny them 
bases of support, to co-opt certain groups, to deny them 
supplies, divide them whenever possible, all of those things so 
we can have some belief that General Petraeus, who wrote this 
manual, is executing, not just an attack policy, but a 
sophisticated multi-faceted policy designed, using historical 
precedent to defeat this insurgency?
    Admiral Mullen. As I read the manual, and my understanding, 
Senator Sessions, of what is involved in counterinsurgency, 
Dave Petraeus is doing exactly what he wrote and he is having 
that kind of impact, specifically it is about security of the 
people. Eventually about the politics of the country and that 
the people will feel that this is a legitimate government. 
That's not a short road. That doesn't happen in a few weeks or 
months, but he's clearly on that path.
    Senator Sessions. In Afghanistan there were decisions that 
had to be made about, do you attack the warlords, or do you co-
opt them?
    Admiral Mullen. Right.
    Senator Sessions. Sometimes they were defeated militarily, 
sometimes they were brought into the government. These are 
tough, subtle decisions that need to be made, but always there 
needs to be a vision for a victory, stability, and peace in the 
government.
    Admiral Mullen. Right. Yes, sir.
    Senator Sessions. Would you say to the American people that 
sometimes progress may be made, that they don't see on 
occasion?
    Admiral Mullen. I think we would all be well served to 
understand, both the insurgency and the counterinsurgency 
principles that are embedded in this kind of situation. Again, 
I think General Petraeus has moved very strongly in the right 
direction.
    Senator Sessions. It's a sophisticated and complex thing.
    Admiral Mullen. It is.
    Senator Sessions. It requires determination and persistence 
and we can't be flopping around based on the latest polling 
guides. We have to be focused on this issue in the long run and 
I hope that, you'll be asked--both of you, to testify here--and 
you'll be asked about this, the progress or lack of it in Iraq. 
It's important.
    I also want to say, Admiral Mullen, I appreciated your 
enthusiastic, I would say, responses to the whole management of 
DOD because that's one of your big responsibilities. General 
Petraeus, he has that combat area, but you have to manage this 
whole Department, consider our Ground Forces, our Naval Forces, 
our Air Forces, our budget, what we can put our priorities on 
and need to for the next 20-30 years. I believe you have the 
ability to do that and we look forward to working with you.
    Admiral Mullen. Yes, sir. Thank you, Senator.
    Chairman Levin. Thank you, Senator Sessions.
    I wonder if Senator Clinton would yield to Senator Warner. 
You are next to be called, but he just has a few additional 
minutes and he needs to leave.
    Senator Clinton. Absolutely.
    Chairman Levin. Thank you.
    Senator Warner. Senator Clinton, may I thank you for that 
courtesy. The many years that you've been on this committee, 
that's the hallmark of your service. Courtesy, respect, and 
you've been a good strong working partner through the years. We 
don't want to lose you. [Laugher.]
    Chairman Levin. Your time is up, Senator Warner. 
[Laughter.]
    Senator Warner. Gentlemen, my two good friends from 
Florida, in exercising, understandably the interest of their 
State--and we all feel that strongly--reviewed some of the past 
deliberations within the Department of Navy regarding the 
strategic disbursal doctrine.
    But how well you and I know that doctrine started back in 
the Cold War days when we were looking at the intercontinental 
exchange of weaponry. So much has evolved since that period of 
time and most particularly, what we learned from September 11, 
that there isn't a single city or township in this country that 
does not have a measure of vulnerability, if that type of 
individual desires to bring harm to our citizens.
    In the discussions that you've had with me and I had with 
Admiral Vern Clark. I've always said you have to put the 
securities interest first, and then do what is necessary.
    So as you proceed to continue to look at these factors and 
determine the various east coast facility ports that can best 
serve our national security system, most particularly the Navy, 
you will take into consideration, I'm sure, the changing world 
of threats. How that really makes almost all the facilities 
equally vulnerable, due to the diversity of threats we face 
now, vice the old doctrine of intercontinental vulnerability.
    Let's proceed in an open and clear way on that. There are 
enormous costs involved to equip a port with facilities to 
handle a nuclear carrier. You know that.
    Admiral Mullen. Yes, sir.
    Senator Warner. I know that. They're far above the cost 
associated with the conventional carriers. It is true that 
they're being phased out, but the realities are, there are 
other ways to balance the disbursal of naval assets, as opposed 
to moving large carriers. Yes, Norfolk has proudly served that 
purpose for generations of the nuclear carriers that are there. 
At any one time, usually there's just one, maybe two at the 
most in port, and the rest are dispersed.
    My last question goes to Afghanistan. We want to make 
certain today we cover fully that serious situation over there. 
We have the continuing problem over there of the drug 
elimination, which is at the core of funding. It looks like 
it's well over half of the gross national product. We have the 
national caveats, which are the rules by which the 
participating countries in NATO allow or disallow the use of 
their forces.
    For example, there are no caveats on the U.S. force, the 
British force, and I think, one or two of the others. Yet, for 
reasons that elude me, other forces come in with restrictions 
on the utilization of their forces, most particularly when it 
relates to missions in harms' way. How will you deal with those 
issues regarding Afghanistan?
    Admiral Mullen. I think on the drug issue with Afghanistan, 
it's a priority and I would continue to both make it a 
priority, understand it in both its breadth and depth, and move 
to bring every part of our national power to try to assist in 
getting that right. Because it is clearly feeding the problem 
that we're challenged with.
    With respect to the caveats, in particular, in Afghanistan, 
having come to this job that I'm in right now from Naples, and 
been the Operational Commander in the Balkans where we still 
have, today, upwards of 16,000 to 17,000 NATO troops in Kosovo. 
At the time I took command, it was upwards of 24,000. We since 
transitioned 7,000 troops in Bosnia to the European Union. The 
issue of caveats is a significant one. My take on it, it comes 
from governments' struggle with what they're going to provide. 
They work their way through their own dynamic challenging 
process of agreement and disagreement. It is in that commitment 
and in that, oftentimes, arrived-at position that it's done so 
with certain caveats.
    I experienced in Kosovo, very specifically, governments or 
forces from countries who were very limited, particularly if it 
got to the use of force.
    In this war, we need to continue to address this. We need 
all arms of our Government, elements of national power to 
continue to work this with the leadership of those countries in 
addition to, in particular, the leadership in NATO. It's a 
constant challenge and I don't believe in the long-run, we can 
succeed without continuing to force that. If we don't, those 
capabilities and those requirements, oftentimes, fall back on 
us in what we've already described this morning as a very 
stressed force. Near-term improvement in there, I think, is 
very important.
    Senator Warner. I thank you.
    I wish you both the best and that with your families.
    Admiral Mullen. Thank you, sir.
    Chairman Levin. Thank you very much, Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Thank you, Senator Clinton.
    Chairman Levin. Senator Clinton.
    Senator Clinton. Thank you very much.
    Admiral Mullen, General Cartwright, I appreciate greatly 
your committed service to our Nation, and I also want to thank 
your families, because I know they've served as well. Both of 
you have long and distinguished careers that have taken you 
around the world, and your families have been there with you 
and supporting our country. I appreciate that.
    As both of you are, I'm sure, aware, I have recently 
corresponded with Secretary Gates, requesting briefings for the 
appropriate oversight committees, including this one, and what 
the current contingency plans are for any future withdrawal of 
U.S. forces from Iraq. In my exchanges with Secretary Gates, I 
pointed out that the seeds of many of the problems that 
continue to plague us in Iraq, both in terms of troops and 
mission, were planted in the failure to adequately plan for the 
conflict and then properly equip our men and women in uniform.
    After an exchange of letters with Secretary Gates and Under 
Secretary of Defense Eric Edelman, this Thursday DOD will brief 
this committee in a closed session, on the status of planning 
for the redeployment of U.S. forces.
    In his letter last week to me, Secretary Gates stated, 
``You may rest assured that such planning is indeed taking 
place with my active involvement, as well as that of senior 
military and civilian officials and our commanders in the 
field. I consider this contingency planning to be priority for 
this Department.'' Let me ask you both, are you aware of the 
contingency planning that Secretary Gates referred to in his 
letter, Admiral Mullen?
    Admiral Mullen. Yes ma'am, I am.
    Senator Clinton. You also, General Cartwright?
    General Cartwright. I'm aware. In my current job I don't 
participate in it right now.
    Senator Clinton. If confirmed, will each of you be involved 
in so far as you know, in this contingency planning? Admiral 
Mullen?
    Admiral Mullen. Senator Clinton, in part of my advance 
policy questions I was asked where I think we made mistakes. 
One of the issues was I didn't think we have the planning that 
we should have had in place. If confirmed, I'm very committed 
to properly planning to the best of my ability, every possible 
operation that we might be involved in. That certainly includes 
the kind of contingency planning that you've asked about in 
your letters and to which the Secretary has responded and of 
which I am aware and, to a certain degree thus far, have 
participated.
    Senator Clinton. Thank you.
    General Cartwright?
    General Cartwright. I concur.
    Senator Clinton. I would ask each of you if you will commit 
to keeping this committee and Congress informed, in classified 
sessions, if necessary, about the process of contingency 
planning for any future redeployment. Admiral?
    Admiral Mullen. Yes, ma'am.
    Senator Clinton. General?
    General Cartwright. Yes, ma'am.
    Senator Clinton. It is clear that, as you pointed out in 
your answers to advance questions provided to this committee, 
that many of us have serious concerns about the quality of 
planning, the interaction between the military and civilian 
leadership with respect to planning, the decision making 
process, certainly leading up to the invasion and then 
continuing in the years since. I think that many of us will be 
looking to you as our chief military officers for our country, 
to really focus in on this planning issue.
    I've been impressed with Secretary Gates' openness and 
willingness to interact with Congress, to listen to the 
professional military leadership around him, but I'm looking 
for ideas about how to institutionalize that. I think that the 
lessons learned from the last years may be very difficult ones 
for any of us to learn and apply, but we have to be committed 
to doing so.
    It does seem that Congress is moving toward an effort to 
put down conditions for a phased redeployment and obviously, 
whether that happens this year or next year, it's going to 
happen at some point. None of us want to see the consequences 
of poor planning.
    The other issue here, that is not, perhaps, strictly within 
the military's purview, is the question of the thousands of 
Iraqi civilians who have been assisting us over the last 
years--the translators and interpreters, the cooks, the embassy 
employees--and recently Ambassador Crocker has raised very 
serious questions about what exactly our planning is for them. 
So I would suggest, perhaps, that it at least be considered in 
the contingency planning, because that is a continuing 
responsibility that we bear. I would appreciate each of you 
taking that and moving forward.
    I think that in your answers Admiral Mullen, in the advance 
policy questions, you say something that I think all of us 
agree with, and that is there is no purely military solution in 
Iraq. Does that lead you to the conclusion that even if our 
troops were to have tactical successes in parts of Iraq, as now 
is being reported in al Anbar Province, that we cannot consider 
our mission successful without political action? Even some 
resolution of the differences among the various factions within 
Iraq?
    Admiral Mullen. Yes, ma'am. I think the lead issue is 
political reconciliation for that government and progress on 
the political leg of the security, economic, and political 
three-legged stool that we've talked about. It absolutely has 
to happen.
    Senator Clinton. It appears that the political progress is 
not occurring, and this is something that our chairman has been 
particularly focused on, really from before the invasion, and 
certainly consistently since. The failure to establish, and 
then to achieve, benchmarks when we had the occupying authority 
and in the years since we have seen an Iraqi Government 
established.
    Admiral, I have to ask, in your advance policy question 
responses and what you have talked about today, given the lack 
of political progress since the escalation began, despite what 
may be, admittedly, short-term advances with the surge 
strategy, how do we expect to obtain any evidence of political 
movement, in the absence of a very different attitude and 
capacity of the Iraqi Government, that were we to be there, as 
you suggested, for years instead of months? Do you have any 
suggestions as to what more could be done to force, or require, 
the political resolution that is so necessary?
    Admiral Mullen. I think it's been clearly stated within the 
last year that they need to make progress in terms of amnesty, 
de-Baathification, an oil-revenue sharing log, constitutional 
reform, and relationships with the provinces. The progress 
there has not been good, at least that's the current 
assessment.
    What I've asked to do is really wait until Ambassador 
Crocker, who has the lead on this aspect of it, comes back with 
General Petraeus and reports in September. I still maintain 
that if we aren't making progress in that realm, the prospects 
for movement in a positive direction are not very good. But, 
waiting until then, I think, is important.
    Senator Clinton. I agree with your assessment. I've 
obviously reached that conclusion some time ago in terms of the 
assessment as to what the Iraqis themselves are actually 
willing to do. I think you could make a very strong case that 
the Iraqis are not ready to put violence aside as a tool for 
the various agendas they're pursuing--sectarian, political, 
personal, and commercial. There's a lot of activity going on 
here.
    It does seem to me that either sooner--in my view, which is 
the appropriate outcome, you both most likely will be 
confirmed, which I think is a great tribute to you both, for 
your service to this country--or later we will be faced with 
implementing a new approach, a sort of post-surge approach. I 
think that the political problems that the Iraqis are failing 
to address will, unfortunately, require that we take a 
different strategic attitude toward Iraq. The results will have 
to be carefully monitored because obviously there are 
consequences no matter what we do.
    Two final points if I could, Mr. Chairman.
    The concerns that many have--and regardless of where one 
stands on how much time we should provide or not--the concerns 
that we all share are the consequences for our troops and for 
the Iraqi people, that will flow from a decision to redeploy. 
If we redeploy out of Baghdad and concentrate on al Anbar. If 
we redeploy into the north and concentrate on shoring up the 
Kurds so that they're not subjected to, most likely, Sunni and 
external problems, whatever the combination of actions might 
be. It is incredibly important that it be managed and 
implemented as carefully as possible because of the difficulty 
of withdrawing troops and equipment. Everybody who has briefed 
me on this, basically comes to the same conclusion--that this 
is as dangerous as going in. We know that if our only way out 
is through the south into Kuwait, it is especially dangerous 
because the increasing chaotic situation in the south, with 
various Shiite factions vying for control, will make us, 
unfortunately, have to navigate an even more dangerous exit. I 
would just underscore this, that this has to continue, and has 
to be focused.
    Finally, I think that the work that you will have to 
supervise, not only is operational, of course, but may very 
well be doctrinal. I mean, it took quite some time to rewrite, 
revise, and update the counterinsurgency manual. The doctrines 
that the former Secretary of Defense would quite often refer to 
or throw out seem not to be based on very much work or, 
frankly, institutional support and infrastructure.
    So, I think that there is not only a very difficult 
strategic and operational side of this, but also a doctrinal 
side. I would strongly recommend that when you assume your new 
positions, since you'll be consumed by the day-to-day 
operations, because no matter what happens, it's going to be 
incredibly intense, I would predict, both politically here in 
Washington, but on the ground militarily and politically in 
Iraq, that you think about--and perhaps in conjunction with 
this committee and others--coming up with some process to look 
at a lot of these doctrines and assumptions that clouded 
judgment and undermined the careful thought that should go in 
to any difficult and dangerous set of decisions, such as we 
were making as a country.
    I don't think it's something that either of you will have 
the time to focus on, but under your supervision and 
monitoring, I think it is extremely important that we really 
understand where we're headed, with a new kind of enemy, with a 
different kind of warfare, with a global threat, because we 
will withdraw from Iraq. We will certainly do it, I believe, 
almost regardless of what happens in next year with this 
President, as soon as we change Presidents, and how we do it, 
how we're prepared for it. But then we're going to have a lot 
of other problems that we face globally that will need some 
clear thinking on.
    I wish you both well and I thank you for your service.
    Chairman Levin. Thank you, Senator Clinton.
    Thank you also, for your initiative, which is just the 
latest of many you've taken, to urge this committee to get that 
briefing, that you referred to, on preparations and planning 
for a phase reduction and redeployment of our forces. It will 
take place at some point. In the view of many of us, sooner 
rather than later, but in any event, it will take place and we 
very much appreciate your suggestion that there be a briefing 
that will take place, as you indicated, this week.
    As indicated, there will be a second round of questions 
should any colleagues within earshot or listening to this, want 
to come back and ask a few additional questions.
    Admiral, let me go back to Pakistan with you for a moment. 
We've spoken somewhat about the fact that al Qaeda has a 
sanctuary there. On the other hand, after the administration 
said that it would pursue actionable targets anywhere in the 
world, putting aside whether it was in Pakistan or any place 
else, the Pakistan Foreign Ministry issued a statement calling 
such talk irresponsible and dangerous.
    Now, al Qaeda has grown in strength in the last few years. 
They've grown in strength in Pakistan, they've grown in 
strength in Iraq. What is your reaction to the Pakistani 
reaction, that our suggestion that we would go after or could 
go after al Qaeda in Pakistan or anywhere else in the world, 
that kind of talk, according to their Foreign Ministry, is 
irresponsible and dangerous?
    Admiral Mullen. I think that, where we have a threat such 
as this, we need to rest comfortably at some point, that it is 
being addressed. We know it is a threat to us, it is a threat 
to our country. That we must figure out a way to do that. So, 
to discuss possibilities which would be the Government of 
Pakistan addressing it directly. They are an important ally of 
ours in this war on terror. They've expressed that, and that 
might be one path, certainly, I consider, to be potentially a 
very responsible path. That it is the only path, I don't think 
that is open, is also a possibility. We should gather all the 
strength of our Government and our allies to address that 
threat.
    Chairman Levin. You made reference in your response to 
Senator Clinton to one of the mistakes, which you referred to 
in your very open, forthright answer, on the question of the 
mistakes which the United States has made in Iraq. I want to 
compliment you on your willingness to set forth these mistakes. 
They included, no early and significant dialogue with 
neighboring countries, the disbanding of the Iraqi Army, a 
divisive deBaathification process, and insufficient forces for 
stability operations. You said that they're still having a 
negative impact, including on your prescription, or including 
on the ability that you hope we would have to mitigate the 
impact by pursuing a balanced strategy in Iraq. Is that the 
three-legged stool that you were referring to?
    Admiral Mullen. Yes, sir.
    Chairman Levin. Okay. Would you agree that al Qaeda has 
seen a resurgence in Pakistan and that it's stronger in Iraq 
now than it was a few years ago?
    Admiral Mullen. It is, it has certainly seen insurgence, 
yes sir, and it is stronger. I worry about it, actually, not 
just there, in other parts of the world.
    Chairman Levin. Would you agree that it's stronger in Iraq 
now than it was before the war?
    Admiral Mullen. I really----
    Chairman Levin. In Iraq?
    Admiral Mullen. Yes sir, I understand that. We've actually 
had some pretty significant successes against al Qaeda in Iraq.
    Chairman Levin. Recently, but would you say it's stronger 
before those successes, those recent successes, was it stronger 
than al Qaeda was in Iraq before the war? In other words, 
haven't they obviously----
    Admiral Mullen. I think al Qaeda is stronger than when the 
war started, yes sir. Certainly.
    Chairman Levin. All right. That's fair enough.
    The issue of detention policy has come up, and I was 
wondering whether or not you agree with the policy that was set 
forth in the July 7, 2006, memorandum of Deputy Secretary of 
Defense Gordon England, stating that all relevant DOD 
directives, regulations, policies, practices, and procedures 
must fully comply with Common Article 3 of the Geneva 
Convention?
    Admiral Mullen. Yes, sir.
    Chairman Levin. Do you support the standards for detainee 
treatment specified in the revised Army Field Manual on 
interrogations that was issued in September 2006 and the DOD 
directive that DOD issued on September 5, 2006?
    Admiral Mullen. Yes, sir.
    Chairman Levin. You believe it is consistent with effective 
counterinsurgency operations for the United States forces to 
comply fully with the requirements of Common Article 3 of the 
Geneva Conventions?
    Admiral Mullen. Yes, sir.
    Chairman Levin. Let me address this to you General, give 
Admiral a moment or two to think about lunch. This is a 
question of the Moscow Treaty, which set a goal for the U.S. 
and Russia to have no more than 1,700 to 2,200 operational 
deployed warheads by 2012--the Treaty does not address total 
stockpile numbers or delivery systems, just operationally-
deployed warheads.
    In your judgment, could we reduce the total stockpile size 
and to dismantle some nuclear warheads before 2012, in other 
words, the number of operationally deployed warheads--but is it 
possible, in your judgment, to reduce the total stockpile size 
before that year?
    General Cartwright. 2012?
    Chairman Levin. Yes.
    General Cartwright. My sense is first, yes, we can. The 
biggest leverage, I think, to do that and to do it 
significantly is to move towards this earlier discussed 
reliable replacement warhead.
    But even absent that, we should be able to reduce that 
stockpile. We have taken measures within the Department in 
concert with the Department of Energy to begin doing that. We 
actually have shown significant increases in the numbers of 
weapons--military jargon, that we are de-miling, or removing--
from the stockpile. We need to stay on that path.
    I agree that as long as there are other countries in the 
world that have nuclear weapons, we're going to have to have a 
deterrent in the nuclear side of the house. But that should be, 
as has been stated several times--not today, but in our policy 
documents--the smallest number necessary to be consistent with 
national security needs. That's, as you say sir, the broader 
stockpile, not just the operationally deployed weapons.
    Chairman Levin. Admiral, you've had enough breathing space. 
Let me come back to you.
    Admiral Mullen. I'm ready.
    Chairman Levin. You are, indeed. There's been a lot of 
discussion this morning, perhaps more than on any other 
subject, on the question of the failure of the Iraqi political 
leaders to make progress. That is the strategic purpose of the 
surge as stated by the President. Would you agree with that?
    Admiral Mullen. Yes sir, it is.
    Chairman Levin. That strategic purpose, even though there's 
some evidence that there may be some positive progress on the 
military side of the surge, in terms of the strategic purpose 
of the surge, we have not seen any progress.
    Admiral Mullen. Yes, sir.
    Chairman Levin. Now, it's the judgment of many of us that 
in order for there to be political progress, that the political 
leaders have to reach an accommodation. As a matter of fact, I 
think that's almost a consensus point. Maliki himself has said 
that it's the failure, and these are his words, ``The failure 
of the Iraqi politicians to reach a political settlement that 
is the cause of the continuing blood shed.''
    It may be true that the State Department handles or 
assesses, but it is also true that the only leverage that 
exists is military leverage. I don't know of any other leverage 
that we can apply. You'd think that the blood-letting inside of 
Iraq would be adequate leverage on the Iraqi politicians. You'd 
think that the prospect of an all out civil war--even worse 
than there is now--would be enough leverage on the Iraqi 
politicians. But the leverage that we have is embodied in the 
forces that you will command and that the President, as 
Commander in Chief, commands.
    So, we're going to need you to do what you have promised 
you would do and I know will do thoroughly, which is to give 
thought to the issue that you said is the key issue, as to how 
much leverage we can put on the Iraqi leaders by telling them 
that their future is in their hands and we can't save them from 
themselves. This open-ended commitment of our military is going 
to end and when it's going to end. That is not exclusively in 
your hands, obviously, that's going to ultimately be a decision 
of the civilian leaders.
    Admiral Mullen. Yes, sir.
    Chairman Levin. But your recommendation on that point, as 
well as General Petraeus' recommendation and CENTCOM 
Commander's recommendation.
    Admiral Mullen. Yes, sir.
    Chairman Levin. These are critically important 
recommendations. I would really press upon you, the power that 
lies in your hands to force those Iraqi politicians. If you 
make a mistake, maybe it would work out badly, but if you don't 
use that leverage, it also could be a terrible waste of an 
opportunity.
    Admiral Mullen. Yes, sir.
    Chairman Levin. Your words and your answer to the question 
that we asked prior to the hearing, you believe that quelling 
the current level of violence in Baghdad is a necessary 
condition for a political solution and as part of your answer 
you said the following--and I couldn't agree with you more--
``Failure to achieve tangible progress towards reconciliation 
requires a strategic reassessment.''
    Admiral Mullen. Yes, sir.
    Chairman Levin. I know you mean it. I'm glad you mean it. 
I'm glad those words are there. I wish you all the best.
    General, we've not paid adequate attention or given you 
enough tough questions this morning. We'll try to, all of us, 
make up for that at a later time. But we wish you both well.
    We thank you, we thank your families for their support 
because we all feel deeply, without it you could not do what 
you need to do. You would not be where you're sitting today 
without the support of your families.
    That's true of us, by the way, in politics, may I say. 
Although I don't want to end on that note, because it properly 
should be ended on a note of thanks to you, the men and women 
under your commands now, that you will be commanding, and the 
families that give you such great support.
    Admiral Mullen. Thank you, Mr. Chairman.
    Chairman Levin. We will stand adjourned.
    [Whereupon, at 12:55 p.m., the committee adjourned.]

    [Prepared questions submitted to ADM Michael G. Mullen, 
USN, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses

                            DEFENSE REFORMS

    Question. You previously have answered the committee's policy 
questions on the reforms brought about by the Goldwater-Nichols Act in 
connection with your nomination to be the Chief of Naval Operations.
    Has your view of the importance, implementation, and practice of 
these reforms changed since you testified before the committee at your 
most recent confirmation hearing for Chief of Naval Operations?
    Answer. No. Overall, the Goldwater-Nichols reforms have 
strengthened the warfighting and operational capabilities of our 
combatant commands and our Nation. The importance of these reforms has 
not diminished with time.

                                 DUTIES

    Question. Based on your experience as the Chief of Naval 
Operations, what recommendations, if any, do you have for changes in 
the duties and functions of sections 152 through 155 of title 10, 
U.S.C., relating to the Chairman and Vice Chairman of the Joint Chiefs 
of Staff (JCS), and the organization and operation of the Joint Staff?
    Answer. At this time, I do not recommend any changes to the law. If 
confirmed, and after I have been in office for a sufficient time to 
determine if changes are advisable, I will recommend changes as 
appropriate or necessary.

                             QUALIFICATIONS

    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I believe I am qualified to serve as Chairman of the Joint 
Chiefs and have significant experience in the duties required. I had 
the privilege of seven command tours from which I gained a solid 
operational foundation. I have served in three joint flag positions: 
Commander Striking Fleet Atlantic; Commander, Allied Joint Force 
Command Naples, Italy; and currently as Chief of Naval Operations. 
While in command in North Atlantic Treaty Organization (NATO), I was 
directly responsible for NATO operations in the Balkans, which included 
17,000-24,000 troops on the ground, as well as standing up the military 
school for the Iraqi security forces. As a Service Chief for the last 2 
years, as a member of JCS, I have been an advisor to the Chairman, 
Secretary of Defense, National Security Advisor, Homeland Security 
Advisor, and the President, shaping military advice. Further, I served 
in the Office of the Secretary of Defense (OSD), completed five tours 
at Navy headquarters, a tour with the Bureau of Naval Personnel and one 
in naval training. Finally, I believe my background and experience will 
be beneficial in leading the Armed Forces through the challenges that 
lie ahead.

                             RELATIONSHIPS

    Question. Section 151(b) of title 10, U.S.C., provides that the 
Chairman of the JCS is the principal military adviser to the President, 
the National Security Council (NSC), and the Secretary of Defense. 
Other sections of law and traditional practice establish important 
relationships between the Chairman and other officials.
    Please describe your understanding of the relationship of the 
Chairman of the JCS to the following officials:
    The Secretary of Defense.
    Answer. The Department of Defense (DOD) is composed of OSD, the 
military departments, the Chairman of JCS, the combatant commands, the 
Inspector General of DOD, the Defense Agencies, DOD field activities, 
and such other offices, agencies, activities, and commands established 
or designated by law, or by the President or by the Secretary of 
Defense. The functions of the heads of these offices are assigned by 
the Secretary of Defense according to existing law. The Chairman and 
the JCS are responsible to the Secretary of Defense for the functions 
assigned to them. Under title 10, the Chairman, JCS is the principal 
military advisor to the President, the NSC, Homeland Security Council 
(HSC), and the Secretary of Defense.
    Question. The Deputy Secretary of Defense.
    Answer. Under existing directives, the Deputy Secretary of Defense 
has been delegated full power and authority to act for the Secretary of 
Defense on any matters upon which the Secretary is authorized to act. 
As such, the relationship of the Chairman with the Deputy Secretary is 
similar to that with the Secretary.
    Question. The Under Secretaries of Defense.
    Answer. Title 10, U.S.C., and current DOD directives establish the 
Under Secretaries of Defense as the principal staff assistants and 
advisers to the Secretary regarding matters related to their functional 
areas. Within their areas, Under Secretaries exercise policy and 
oversight functions. They may issue instructions and directive type 
memoranda that implement policy approved by the Secretary. These 
instructions and directives are applicable to all DOD components. In 
carrying out their responsibilities, and when directed by the President 
and Secretary of Defense, communications from the Under Secretaries to 
commanders of the unified and specified commands are transmitted 
through the Chairman of JCS.
    Question. The Assistant Secretaries of Defense.
    Answer. With the exception of the Assistant Secretaries of Defense 
for Public Affairs, Legislative Affairs, and for Networks & Information 
Integration, all Assistant Secretaries of Defense are subordinate to 
one of the Under Secretaries of Defense. In carrying out their 
responsibilities, and when directed by the President and Secretary of 
Defense, communications from the Under Secretaries to commanders of the 
unified and specified commands are transmitted through the Chairman of 
JCS. If confirmed, I will work closely with the Assistant Secretaries 
in a manner similar to that described above for the Under Secretaries.
    Question. The General Counsel of DOD.
    Answer. Under title 10, U.S.C., section 140, the DOD General 
Counsel serves as the chief legal officer of DOD. In general, the DOD 
General Counsel is responsible for overseeing legal services, 
establishing policy and overseeing the DOD Standards of Conduct 
Program, establishing policy and positions on specific legal issues and 
advising on significant international law issues raised in major 
military operations, the DOD Law of War Program, and legality of 
weapons reviews. The office of the DOD General Counsel works closely 
with the Office of Legal Counsel to the Chairman of JCS; and 
communications with the combatant commanders by the DOD General Counsel 
are normally transmitted through the Chairman of JCS.
    Question. The Vice Chairman of JCS.
    Answer. The Vice Chairman of JCS performs such duties as may be 
prescribed by the Chairman with the approval of the Secretary of 
Defense. When there is a vacancy in the Office of the Chairman or in 
the absence or disability of the Chairman, the Vice Chairman acts as 
Chairman and performs the duties of the Chairman until a successor is 
appointed or the absence or disability ceases.
    Question. The Secretaries of the Military Departments.
    Answer. Title 10, U.S.C., section 165, provides that, subject to 
the authority, direction, and control of the Secretary of Defense, and 
subject to the authority of the combatant commanders, the secretaries 
of military departments are responsible for administration and support 
of forces that are assigned to unified and specified commands.
    The Chairman advises the Secretary of Defense on the extent to 
which program recommendations and budget proposals of the military 
departments conform with priorities in strategic plans and with the 
priorities established for requirements of the combatant commands.
    Question. The Chiefs of Staff of the Services.
    Answer. As a result of the Goldwater-Nichols Act, the Service 
Chiefs are no longer involved in the operational chain of command. 
However, this does not diminish their importance with respect to title 
10 responsibilities, and among other things, they serve two significant 
roles. First and foremost, they are responsible for the organization, 
training, and equipping of their respective Services. Without the full 
support and cooperation of the Service Chiefs, no combatant commander 
can be ensured of the preparedness of his assigned forces for missions 
directed by the Secretary of Defense and the President.
    Second, as members of JCS, the Chiefs are advisers to the Chairman 
and the Secretary of Defense as the senior uniformed leaders of their 
respective Services. In this function, they play a critically important 
role in shaping military advice and transforming our joint 
capabilities. If confirmed, I will work closely with the Service Chiefs 
to fulfill warfighting and operational requirements.

                       THE COMBATANT COMMANDERS.

    Question. The combatant commanders fight our wars and conduct 
military operations around the world. By law, and to the extent 
directed by the Secretary of Defense, the Chairman serves as spokesman 
for the combatant commanders and is charged with overseeing their 
activities. He provides a vital link between the combatant commanders 
and other elements of DOD, and as directed by the President, may serve 
as the means of communication between the combatant commanders and the 
President or Secretary of Defense.
    Question. The Assistant to the President/Deputy National Security 
Advisor for Iraq and Afghanistan.
    Answer. The Deputy National Security Advisor for Iraq and 
Afghanistan is a direct advisor to the President. As the role of the 
Chairman is to serve as the principal military advisor to the 
President, NSC, HSC, and Secretary of Defense, if confirmed, I will 
work closely with him to ensure our efforts are synchronized across the 
interagency and combatant commanders.
    Question. The Commander, Multinational Forces-Iraq.
    Answer. As a subordinate command of the United States Central 
Command, the Chairman, JCS communicates to the Commander, Multinational 
Forces-Iraq through the Commander, United States Central Command.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that you 
would face if confirmed as Chairman of JCS? My immediate concern is 
Iraq. Progress in Iraq requires a committed security, stabilization, 
reconstruction, and transition campaign. In the broader Middle East, I 
believe stability is critical.
    Resetting, reconstituting, and revitalizing our force demands my 
focus. The war has spread our forces thin. I am concerned about the 
effects of the stress on our ground forces. We need to achieve a 2-to-1 
force rotation construct. We also need a force correctly shaped and 
sized, trained, and equipped, to deter and prevent, and if necessary, 
fight and win our Nation's wars.
    I believe we must carefully rebalance the global strategic risk. 
This is a critical time in our Nation's history, the challenges of the 
Middle East and the current stress on our ground forces are 
representative of the dynamic nature of the security challenges we face 
in the 21st century.
    Question. What do you consider to be the biggest problems that you 
would confront, if confirmed?
    Answer. My immediate concern is Iraq. Progress in Iraq requires a 
committed security, stabilization, reconstruction, and transition 
campaign. In the broader Middle East, I believe stability is critical.
    Resetting, reconstituting, and revitalizing our force demands my 
focus. The war has spread our forces thin. I am concerned about the 
effects of the stress on our ground forces. We need to achieve a 2-to-1 
force rotation construct. We also need a force correctly shaped and 
sized, trained and equipped, to deter and prevent, and if necessary, 
fight and win our Nation's wars.
    I believe we must carefully rebalance the global strategic risk, 
This is a critical time in our Nation's history, the challenges of the 
Middle East and the current stress on our ground forces are 
representative of the dynamic nature of the security challenges we face 
in the 21st century.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges and problems?
    Answer. If confirmed, I would pursue a strategy focusing on vital 
national interests, which employs all elements of national power, and 
balances global strategic risk. Our military is central to supporting 
vital national interests:

          -  Homeland secure from catastrophic attack;
          -  Sustained global influence, leadership and freedom of 
        action;
          -  Sustained strategic endurance and military superiority;
          -  Flourishing global and national economies;
          -  Assured access to strategic resources; and
          -  Regional stability in Middle East.

                               PRIORITIES

    Question. If confirmed, what would be your priorities as Chairman?
    Answer. My immediate concern is Iraq. Progress in Iraq requires a 
committed security, stabilization, reconstruction, and transition 
campaign. In the broader Middle East, I believe stability is critical.
    Resetting, reconstituting, and revitalizing our force demands my 
focus. The war has spread our forces thin. I am concerned about the 
effects of the stress on our ground forces. We need to achieve a 2-to-1 
force rotation construct. We also need a force correctly shaped and 
sized, trained and equipped, to deter and prevent, and if necessary, 
fight and win our Nation's wars.
    I believe we must carefully rebalance the global strategic risk. 
This is a critical time in our Nation's history, the challenges of the 
Middle East and the current stress on our ground forces are 
representative of the dynamic nature of the security challenges we face 
in the 21st century.

                       NATIONAL MILITARY STRATEGY

    Question. There has been much discussion about the threats the 
United States will face in the coming decades, including radical Islam, 
the so-called ``long war'' against terrorism, and the growing potential 
for confrontations with a range of violent non-state actors. We also 
recognize now the importance of and requirement to be able to 
competently conduct stability and support operations. There are also 
pressures to take a broader view of the threat to United States 
national security from potential political, economic, and social 
instability caused by environmental catastrophes brought on by global 
warming or natural disasters.
    Are you satisfied that the 2004 National Military Strategy is 
appropriate for the threats the Nation faces today and could face in 
the coming decades? What changes, if any, should be considered?
    Answer. The military objectives of the 2004 National Military 
Strategy (NMS)--Protect the United States, Prevent Conflict and 
Surprise Attacks, and Prevail Against Adversaries--were developed 
broadly to remain relevant to the complexities of the emerging security 
environment.
    If confirmed as Chairman, I will continue to examine the NMS to 
ensure it appropriately accounts for emerging trends, to include, where 
appropriate, effects brought on by environmental catastrophes. I will 
submit an updated assessment in February 2008 as required by title 10, 
section 153(d).

                           ROLES AND MISSIONS

    Question. Since the end of the Cold War, the Department has 
considered and reconsidered its capabilities requirements, technology 
acquisition strategies, organizational structure, and forces mix. The 
geo-strategic environment appears to be changing faster than our 
military can change to meet new threats, challenges, and opportunities. 
Fundamental to change within the Armed Forces is agreement on the 
appropriate distribution of roles and missions among the military 
departments and several independent agencies. The last two Quadrennial 
Defense Reviews (QDRs) have acknowledged major shifts in the strategic 
environment facing the Nation, but recommended no changes to roles and 
missions and only minor adjustments to the form and size of the defense 
establishment.
    Are you satisfied that our defense establishment is optimally 
structured, that roles and missions of the military departments are 
appropriately distributed, and that United States forces are properly 
armed, trained, and equipped to meet the security challenges the Nation 
faces today and into the next decade?
    Answer. I believe we must continue to shift from a force that 
focused on major combat operations to one that is more able to counter 
the current unconventional threats our Nation faces. The United States 
military must maximize the effectiveness of our asymmetric advantages 
wherever they exist. We have learned several lessons from operational 
experience, and as the last QDR points out we have prepared the armed 
forces to defeat terrorist networks, defend the homeland in-depth, 
prevent the acquisition or use of weapons of mass destruction, and 
shape the choices of countries at strategic crossroads.
    At the same time the last QDR considered how we think about the 
enterprise, how we manage it, and how we field capabilities. We must 
institutionalize that approach to enable the continued transformation 
of the Department. I recognize the importance of continuing this 
transformation in operations, strategy, and within the enterprise and 
will do so, if confirmed.

                            STRATEGIC DEPTH

    Question. At this moment, the U.S. ground forces are fully 
committed to or exclusively preparing for operations in Iraq and 
Afghanistan. In order to ensure that deployed forces are fully 
prepared, personnel and equipment are cross leveled from nondeployed 
units. Therefore, the few remaining brigades lack the personnel, 
equipment, and training necessary for unrestricted availability to meet 
any new contingency should one arise. This situation puts the Nation in 
a perilous position. We lack what former Chief of Staff of the Army, 
General Peter Schoomaker, called ``strategic depth.'' This lack of 
military depth could embolden a potential adversary, slows our ability 
to respond to a new emergency, and increases the probability of higher 
casualties in any future conflict. In the absence of sufficient 
strategic depth, the Nation must more carefully manage strategic risk.
    What is your assessment of the current readiness of our Armed 
Forces, and particularly our ground forces, for worldwide commitment to 
any contingency and any level of operations?
    Answer. Current operational commitments are creating significant 
demands on the force, particularly our ground force. Readiness of 
deployed forces and forces that are preparing to deploy remain our 
highest priorities. Sustaining operations in Iraq and Afghanistan, 
while maintaining readiness to respond to new contingencies around the 
globe, is a heavy burden on our current force structure. Current 
operations are degrading our ability to perform full-spectrum 
operations. That said, we have significant strategic depth resident in 
our Air Force and Navy, which mitigates somewhat the current strategic 
risk because of the stress on our ground forces.
    While it is critical that we maintain our focus on current 
operations, where possible, we are taking steps to enhance our ability 
to respond to emerging or unplanned events. We are building strategic 
depth by increasing the size of our forces.
    Question. What in your view is the level of strategic risk the 
Nation faces given the lack of depth in our ground forces?
    Answer. The Chairman's Risk Assessment Report provided to Congress 
in February 2007 was developed in consultation with the Joint Chiefs. I 
endorse its classified assessment of the level of risk facing our 
Nation. That level of risk is due to a number of factors, including 
stress on the United States military, especially our ground forces. 
From a military perspective, continued deployments, accelerated 
equipment usage rates across the Services and high operational tempo 
all contribute to risk and are unlikely to subside in the near term. I 
am confident that our Armed Forces remain capable of defeating all who 
threaten our Nation's security.
    Question. What in your view are the three most important actions we 
should take immediately to mitigate and correct our lack of strategic 
depth?
    Answer. Mitigating risk requires a number of actions, many already 
ongoing. Priorities include efforts to:

          (1) Get to a 2-to-1 force rotation metric; this will require 
        an increase in the size of the Army and Marine Corps. Growth 
        will improve our warfighting capacity and reduce the stress 
        experienced by our forces.
          (2) Resetting, repairing, and replacing equipment worn out or 
        damaged in battle and restoring prepositioned stocks drawn to 
        equip new units or those committed to operations in Iraq or 
        Afghanistan will ensure our forces are ready to respond rapidly 
        to contingencies at home and abroad.
          (3) We must also stress modernization across all the 
        Services. Much of our equipment is approaching or is at the 
        limits of its service life. Replacing aging equipment with 
        modern systems and integrating new capabilities will ensure our 
        Armed Forces remain preeminent.

                             TRANSFORMATION

    Question. Please describe the progress that the Department, 
including the JCS and the Joint Staff, has made in transforming the 
Armed Forces.
    Answer. I recognize the need to shift the balance of our 
capabilities to better meet the irregular, disruptive, and potentially 
catastrophic security challenges of the 21st century while maintaining 
our ability to overmatch any traditional challenge that may arise to 
confront us.
    DOD has shifted its focus in the following ways:

        <bullet> From a peacetime tempo to a wartime sense of urgency 
        in an era of surprise and uncertainty;
        <bullet> From single-focused threats to multiple, distributed, 
        and complex challenges;
        <bullet> From a ``one-size-fits-all deterrence'' to tailored 
        deterrence for rogue powers, terrorist networks and near-peer 
        competitors;
        <bullet> From responding after crisis starts (reactive) to 
        preventive actions so problems do not become crises 
        (proactive); and from crisis response to shaping the future;
        <bullet> From peacetime planning to rapid Adaptive Planning;
        <bullet> From a focus on kinetics to a focus on effects;
        <bullet> From 20th century processes to 21st century 
        approaches--particularly how information used innovatively 
        generates power; and
        <bullet> From a DOD solutions to interagency, multi-lateral and 
        multi-national comprehensive approaches.

    The JCS have championed the shift from dependence on large, 
permanent overseas garrisons toward expeditionary operations utilizing 
increasingly more austere bases abroad; from focusing on primarily 
traditional combat operations toward greater capability to deal with 
asymmetric challenges; from deconflicting joint operations to 
integrated and even interdependent operations--all while massing the 
cumulative power of joint forces to achieve synergistic effects. 
Specific examples include:

        <bullet> Ground forces taking on more of the tasks heretofore 
        performed by Special Operations Forces;
        <bullet> Improving warfighter proficiency in irregular warfare; 
        counterinsurgency; and stabilization, transition, and 
        reconstruction operations;
        <bullet> Developing proficiency in foreign languages and 
        cultures;
        <bullet> Implementing ground-force modularity at all levels; 
        ensuring they are largely self-sustaining, and capable of 
        disaggregating into smaller, autonomous units (Army brigade 
        combat teams);
        <bullet> U.S. Marine Corps has established a Marine Corps 
        Special Operations Command and within it established Foreign 
        Military Training Units; and improved the capability to conduct 
        distributed operations as well as ``low-end'' SOF missions;
        <bullet> Special Operating Forces (SOF) are increasing their 
        capability to detect, locate, and render safe weapons of mass 
        destruction. SOF is also significantly increasing capacity;
        <bullet> U.S. Special Operations Command has been designated 
        the lead combatant command for planning, synchronizing, and 
        executing global operations against terrorist networks;
        <bullet> Joint air capabilities are shifting to systems with 
        far greater range and persistence; larger and more flexible 
        payloads for surveillance or strike; and the ability to 
        penetrate and sustain operations in denied areas;
        <bullet> Future joint air capabilities will exploit stealth and 
        advanced electronic warfare; they will include a mix of manned 
        and unmanned aircraft for both surveillance and strike;
        <bullet> Joint maritime forces including the Coast Guard are 
        increasingly conducting highly distributed operations with a 
        networked fleet that is more capable of projecting power in 
        littoral waters; and
        <bullet> The Navy is expanding its riverine capability for 
        river patrol, interdiction, and tactical troop movement on 
        inland waterways.

    The Joint Staff supports and facilitates transformation efforts by 
acting as the primary agent for developing and monitoring concept 
development and joint experimentation.

        <bullet> The Joint Operations Concepts (JOpsC) family consists 
        of the Capstone Concept for Joint Operations, Joint Operating 
        Concepts, Joint Functional Concepts, and Joint Integrating 
        Concepts. These concepts look 8-20 years into the future and 
        serve to translate strategic guidance, such as the National 
        Security Strategy, National Military Strategy, and Strategic 
        Planning Guidance, into joint force capabilities through joint 
        experimentation.
        <bullet> The concept development and experimentation process 
        actively solicits and fosters participation by combatant 
        commanders, Services, and agencies to bring together and 
        leverage off the differing perspectives to address future 
        warfighting needs and challenges.
        <bullet> Joint Concept Development and Experimentation involves 
        the unprecedented integration of strategists, operational 
        planners, and participation of the requirements, 
        experimentation, and acquisition communities.

    As an integral part of the capabilities based planning process, the 
Joint Staff developed a Joint Capability Area framework and lexicon 
representing the beginnings of a common language to discuss and 
describe capabilities and increase transparency across related DOD 
activities and processes.
    Question. If confirmed, what would be your goals regarding 
transformation in the future?

        <bullet> We must recruit and retain the high quality of our 
        joint force we must rapidly reset and transform the force to 
        meet the security challenges of the 21st century.
        <bullet> Our future military concepts all reflect the need for 
        addressing future security challenges as a unified team with 
        other interagency partners. One of my primary goals would 
        therefore be to push for DOD to partner with other interagency 
        members to address how we will achieve national security 
        objectives now and in the future through inter-governmental 
        concepts.
        <bullet> We must continue to build relationships with multi-
        national partners and potential partners, laying the foundation 
        for future joint operations and shaping the environment for 
        those operations.

    Question. Do you believe the Joint Staff should play a larger role 
in transformation? If so, in what ways?
    Answer. I believe the Joint Staff should continue current 
transformational initiatives and work harder to fuse the development of 
JOpsC that will enable forces in the field to be more effective, 
aggressively address and solve issues that fall in or across the seams 
between the combatant commands, and work with the Services to ensure 
our best ideas, efficiencies and technologies are made available to our 
future warfighters.

                        JOINT OFFICER MANAGEMENT

    Question. The Chairman of JCS issued his vision for Joint Officer 
Development (JOD) in November 2005. The Secretary of Defense approved a 
Strategic Plan for Joint Officer Management and Joint Professional 
Military Education (JPME) in April 2006, and published the DOD Joint 
Officer Management Joint Qualification System Implementation Plan on 
March 30, 2007.
    Is the 2005 Chairman of JCS Vision for JOD consistent with your 
views? If confirmed, will you revise this vision?
    Answer. Yes, the 2005 Chairman of the Joint Chiefs of Staff Vision 
for JOD is consistent with my views. The premise of JOD vision is to 
have a competency-based, lifelong continuum of learning . . . in a 
joint context. The goal of JOD is to ensure we have the largest 
possible body of fully qualified and inherently joint officers for 
joint command and stag responsibilities. If confirmed, I will continue 
to enforce the foundations addressed in the JOD vision to ensure our 
officers are strategically minded, critical thinkers, and skilled joint 
warfighters. I am committed to increasing levels of joint competency 
and joint capabilities for all officers, both Active and Reserve.
    If confirmed, I will remain fully supportive of JOD as it is 
written today. I also understand that developing our officers is a 
continuous process that will go through several iterations and reviews. 
I am committed to ensuring they are prepared to support the vision and 
strategy as laid out by the President and the Secretary of Defense.
    Question. What do you consider to be the principal issues addressed 
by the strategic plan, and, if confirmed, what objectives would you 
hope to achieve?
    Answer. The Strategic Plan modernizes JOD and management in the 
21st century. The joint force management infrastructure must be as 
dynamic as the environment in which the joint force operates to ensure 
we have the right mix of joint educated, trained, and experienced 
officers--the Plan recognizes this and meets the demands of today's 
robust environment.
    If confirmed, I will continue implementation of the new Joint 
Officer Management process, per the changes authorized in National 
Defense Authorization Act (NDAA) for Fiscal Year 2007, to develop the 
flexible joint manpower structure we need to meet the ever-changing 
military environment. The Strategic Plan led to legislative changes 
enabling the new Joint Qualification System will be responsive to the 
warfighters in multi-Service, multi-national, and interagency 
operations and produce the number of fully qualified and inherently 
joint officers we need. It builds on Goldwater-Nichols' traditional 
path to joint qualification and opens up the aperture by better 
recognizing the accrual of joint experience.
    Question. What do you consider to be the primary strengths and 
weaknesses of the requirements for JPME with respect to qualification 
as a joint specialty officer?
    Answer. The Goldwater-Nichols Act correctly established Joint 
Professional Military Education, along with a joint duty assignment, as 
the standard for today's joint professional. For the past 20 years 
officers have aspired to earn the Joint Specialty Officer designation. 
While the premise of that designation (that an officer be proficient in 
joint matters) remains the same, the title has changed under NDAA for 
Fiscal Year 2007 to ``Joint Qualified Officer.''
    Joint education remains central to the development of Joint 
Qualified Officers--the strength of joint education is that it is at 
the heart of JOD and is a major pillar of the Joint Learning Continuum 
that also includes individual training, experience, and self-
development.
    If confirmed as the Chairman, I understand my responsibility under 
title 10, to ensure the necessary joint training and education of the 
Armed Forces to accomplish strategic and contingency planning and 
preparedness to conform to policy guidance from the President and the 
Secretary of Defense is critical to the defense of our Nation.
    The weakness is that we still have a challenge with capacity in 
delivery of JPME Phase II--with the size of our current military 
officer force today, the number of officers requiring JPME II far 
exceeds our capacity to educate all officers at the JPME II level. We 
do have the ability to provide every officer, both Active and Reserve 
component, the opportunity to receive JPME Phase I credit, and have 
been granted, thanks to the Congress' approval, expansion of Phase II 
Joint education to the Senior Level Colleges' in-resident programs.
    Question. What is your assessment of the appropriate balance 
between education and experience in achieving qualification as a joint 
specialty officer?
    Answer. Both education and experience are critical to JOD. I 
believe that our system must be flexible enough to provide selected 
officers a tailored mix of the joint education, training and assignment 
opportunities they need to gain the experience and achieve the 
competency-level an organization requires to effectively fill critical 
joint positions.

                           REBALANCING FORCES

    Question. In a memorandum of July 9, 2003, the Secretary of Defense 
directed action by the Services, the Joint Staff, and OSD aimed at 
achieving better balance in the capabilities of the Active and Reserve 
components. The Secretary noted that the Department ``needs to promote 
judicious and prudent use of the Reserve components with force 
rebalancing initiatives that reduce strain through the efficient 
application of manpower and technological solution based on a 
disciplined force requirements process.''
    What progress has been made in achieving the Secretary's vision?
    Answer. The Secretary's vision encompassed three principal 
objectives: rebalance the Active and Reserve Forces to reduce the need 
for involuntary mobilization of the Guard and Reserve; establish a more 
rigorous process for reviewing joint requirements, which ensures that 
force structure is designed appropriately and requests for forces are 
validated promptly to provide timely notice of mobilization; and make 
the mobilization and demobilization process more efficient.
    We have instituted a new process for assignment, allocation, and 
apportionment of United States military forces to the combatant 
commands. The Global Force Management Process provides comprehensive 
insight into the total number of United States Forces available in our 
inventory forces and helps us match requirements with available forces. 
Sourcing solutions are developed and then approved at a quarterly 
Global Force Management Board designed to ensure the best options are 
selected to achieve desired effects.
    Additionally, the lessons learned during Operation Iraqi Freedom 
concerning Reserve mobilization and demobilization have been put into 
action. Specific recommendations were made, each with follow-on 
actions, to enhance the capability of the Department to mobilize and 
deploy Reserve Forces in the most effective manner possible. The 
Department has rewritten policies that have been included in the Global 
Force Management process. As part of this process, every Reserve 
deployment is reviewed for an effective alternative source of 
manpower--civilian, contractor, or volunteer.
    In May of this year, the Secretary of Defense signed a memorandum 
implementing changes recommended by the Commission on the National 
Guard and Reserves. These changes, have met with considerable support 
as they are designed to enhance the National Guard Bureau to meet the 
national security requirements of the United States.
    Rebalancing the force will continue to be an ongoing process. The 
Reserve components, and the Total Force, must always preserve the 
capability to operate across the full spectrum of conflict.
    Question. What do you consider to be the biggest continuing 
obstacles to achieving the goals that the Secretary of Defense has set 
forth in his memorandum?
    Answer. The biggest challenge is determining what capabilities 
we'll need in the future and therefore, determining the appropriate 
balance between the active and Reserve components while maintaining 
sufficient warfighting capability. To that end, rebalancing of the 
force is an ongoing activity within the Department. The Department 
continually assesses its force structure and rebalancing within, and 
between, the active and Reserve components with the expressed purpose 
of improving readiness and deployability. Reserve component sources 
must be adequately resourced and prepared for anticipated requirements. 
Maintaining interoperability and providing the resources to train and 
equip the Reserve Forces to a single operational standard remains a 
Total Force imperative.
    Not since World War II have the Reserve components been called upon 
to perform in such a high operational tempo, and they have performed in 
an exemplary manner. It is true that when you call out the Reserve 
component you call out the Nation, and they have answered that call.

                          HEALTH CARE BENEFITS

    Question. In May 2007, the Task Force on the Future of Military 
Health Care issued an interim report concluding that ``to sustain and 
improve military health care benefits for the long run, actions must be 
taken now to adjust the system in the most cost-effective ways.'' Among 
other recommendations, the Task Force recommends increasing the portion 
of the costs borne by retirees under age 65, and suggesting an increase 
in military retired pay to offset part or all of the increase if 
Congress believes that the increases are too large relative to retired 
pay.
    What recommendations, if any, would you offer to address the 
increasing cost of health care and other personnel benefits?
    Answer. Our men and women in uniform make great sacrifices for 
their Nation, and their personnel benefits, to include compensation and 
health care programs, have always been a priority for me. The continued 
support of Congress, and the Nation, is greatly appreciated by our 
military servicemembers.
    The rising cost of health care is clearly an issue we need to work 
and will seek the support of Congress. Maintaining the life long 
continuum of care is especially critical with the ongoing operations in 
the Middle East. We need to strike a balance between our people, health 
care, acquisition and operations and maintenance.
    If confirmed, I will continue to support the Under Secretary of 
Defense for Personnel and Readiness and the Assistant Secretary of 
Defense for Health Affairs as they lead the Department's ongoing effort 
to promote efficiency in both our direct health care and purchased care 
programs.
    The Task Force on Military Health Care's final report will be 
released in December. I look forward to review those recommendations 
and will use the report findings to help shape an equitable plan to 
sustain the benefit, while attempting to control the significant rise 
in costs.
    Question. If confirmed, what role would you anticipate playing in 
any shaping or rethinking of health care benefits for military 
personnel, including retirees and their families?
    Answer. If confirmed, I would support a health care benefit system 
that is flexible, effective, and cost-efficient to serve the needs of 
our military members, retirees, and their families.
    I look forward to continuing our efforts with Congress and DOD to 
ensure military personnel can serve their nation with the knowledge 
that their health care benefits are secure. In this time of war, we are 
committed to providing the best care possible for our forces that are 
returning with combat injuries. I will also continue to support close 
cooperation between the DOD and the Department of Veterans Affairs to 
improve care for our troops and for those who have left the Service.
    Question. How would you assess the impact of health care benefits 
on recruitment and retention of military personnel?
    Answer. The recruiting and retention environment is very dynamic 
and competitive, and a quality health care system is an important 
cornerstone in our overall benefits package. Maintaining our high-
quality, All-Volunteer Force is dependent on our ability to continue to 
recruit and retain men and women with a desire to serve their Nation. 
Our health care benefits program clearly helps us in these efforts.
    Question. What role should the Chairman of JCS, as opposed to the 
service chiefs, play with respect to health care benefits?
    Answer. If confirmed, my title 10 role is to provide military 
advice to the President, NSC, HSC, and the Secretary of Defense. In 
that capacity I will support the Services and the Department as they 
evaluate benefit programs. The Service Chiefs have a direct function 
within their respective departments in the delivery of health care 
services in addition to offering appropriate advice as members of JCS.

                     SEXUAL ASSAULT IN THE MILITARY

    Question. In response to a congressional requirement for 
formulation of a comprehensive policy related to sexual assaults in the 
Armed Forces, the Secretary of Defense promulgated guidance aimed at 
more effectively preventing sexual assaults, investigating incidents of 
sexual assault, and responding to the needs of victims of sexual 
assault.
    What role, if any, has the Joint Staff played in monitoring 
progress within the military services and the combatant commands' areas 
of responsibility in order to ensure enforcement of a ``zero 
tolerance'' policy relating to sexual assaults?
    Answer. As a member of the DOD Sexual Assault Advisory Council, the 
Joint Staff works closely with the Joint Task Force Sexual Assault 
Prevention and Response team, the Services, and OSD. This ensures that 
the policy is executable in the joint and multinational operational 
environment.
    The Joint Staff provides a monthly report to the task force on 
Service progress in completing investigations of sexual assaults that 
occur in the United States Central Command area of operations. The 
Joint Staff also provides assistance to combatant commanders during the 
development of their internal procedures; serve as a liaison staff to 
address Service policy issues that might impact a commander's ability 
to conduct investigations; and provides support to victims in the joint 
environment.
    Question. What reporting requirements or other forms of oversight 
by service leaders do you think are necessary to ensure that the goals 
of sexual assault prevention and response policies are achieved?
    Answer. I do not believe we need any additional reporting 
requirements on oversight by Service leaders. The prevention of sexual 
assault is the responsibility of all leaders and every soldier, sailor, 
airman, and marine. Leaders in particular must be apprised of command 
climate and aware of sexual assault or harassment incidents, and remain 
in the forefront to ensure that our policies are understood and 
enforced. They should also be held accountable in this area.
    Question. If confirmed, will you direct any changes to the Joint 
Staff's responsibilities for addressing the issue of sexual assault in 
the Armed Forces?
    Answer. If confirmed, I will stress to the entire Armed Forces my 
expectations. Every leader plays a vital role in the prevention of 
sexual assault. The Joint Staff will monitor the training and incident 
reporting of sexual assault very closely. Any changes to the Joint 
Staff responsibilities would be initiated.

                        INDEPENDENT LEGAL ADVICE

    Question. During your assignment on the Joint Staff, you may have 
had the opportunity to observe the working relationship between the 
Chairman's legal advisor, the DOD General Counsel, the Judge Advocates 
General of the Services and judge advocates advising commanders in the 
field.
    What is your view about the responsibility of the Chairman's legal 
advisor to provide independent legal advice to you, other members of 
JCS, and to the Joint Staff?
    Answer. I view the Chairman of JCS Legal Counsel as having 
responsibility for providing independent legal advice to the Chairman 
in his role as principal military adviser to the President, the NSC, 
HSC, and the Secretary of Defense. In addition, he must advise the 
Chairman, Vice Chairman, and Joint Staff on the full spectrum of legal 
issues. Given the Chairman's role as spokesman for the combatant 
commanders, the Legal Counsel frequently advises and assists combatant 
commander's legal staffs. In all of these roles, I expect the 
Chairman's legal counsel to provide his best independent counsel.
    Question. What is your view of the need for the Judge Advocates 
General of the Services to provide independent legal advice to the 
Chiefs of Staff?
    Answer. I similarly believe that the Judge Advocates General should 
provide their best independent counsel with regards to all of their 
roles and responsibilities; to include advising the Chiefs of Staff.
    Question. What is your view of the responsibility of judge 
advocates within the services and joint commands to provide independent 
legal advice to military commanders?
    Answer. Uniformed staff judge advocates are essential to the proper 
functioning of the Armed Forces. In the critical area of military 
justice, commanders and commanding officers are required by statute 
(title 10, section 806) to communicate with their staff judge advocates 
with the purpose of receiving instruction and guidance in this field. 
In addition, officers rely on their staff judge advocates for advice on 
all types of legal matters, extending beyond their statutory 
responsibilities. A staff judge advocate has a major responsibility to 
promote the interests of a command by providing relevant, timely, and 
independent advice to its military commander, whether at shore or in 
the fleet. Title 10, section 5148(2)(2) reinforces the critical need 
for independent advice from a staff judge advocate, by prohibiting all 
interference with a judge advocate's ability to give independent legal 
advice to commanders, as applied to any employee of DOD. Commanders 
depend extensively on their staff judge advocates to provide 
independent advice, which combines legal acumen and understanding of 
military requirements and operations.

                            WOMEN IN COMBAT

    Question. The issue of the appropriate role of women in the Armed 
Forces is a matter of continuing interest to Congress and the American 
public.
    What is your assessment of the performance of women in the Armed 
Forces, particularly given the combat experiences of our military, 
since the last major review of the assignment policy for women in 1994?
    Answer. Today, more than 333,000 women serve in the United States 
Armed Forces around the world and they are performing with distinction. 
From commanders, pilots, crewmembers, technicians, to military police, 
women will continue to play a critical role in the defense of our 
Nation in a wide variety of assignments and skills.
    Question. What is your understanding of the status of the report on 
implementation of DOD policies with regard to the assignment of women 
required by section 541 of Public Law 109-163?
    Answer. It is my understanding the draft report is still being 
worked within the Department and has not been released.
    Question. Does the DOD have sufficient flexibility under current 
law to make changes to the assignment policy for women when needed?
    Answer. Current law provides adequate flexibility to make changes 
to DOD assignment policy for women.
    Question. Do you believe any changes in the current policy are 
needed?
    Answer. The current DOD policy recognizes that women are an 
integral part of our Armed Forces and provides the flexibility needed 
to address changes to the operational environment. If confirmed, and 
there are appropriate changes to be brought forward, I will do so.

               COMMISSION ON NATIONAL GUARD AND RESERVES

    Question. The Commission on the National Guard and Reserves issued 
a second interim report to Congress on March 1, 2007, recommending 
among other things that the Chief of the National Guard Bureau (CNGB) 
should not be a member of JCS, but that the National Guard Bureau 
should be a joint activity and the Commander or Deputy Commander of 
U.S. Northern Command should be a Reserve or National Guard officer at 
all times.
    What is your opinion on the recommendations of the Commission?
    Answer. I agree with the Secretary of Defense's memo dated 10 May 
2007. The Secretary agreed in whole or part with 20 of the Commission's 
recommendations and proposed alternatives for the 3 remaining 
recommendations.
    Question. What is your view of the appropriate role of senior 
Reserve component officers on the Joint Staff and on the staffs of the 
combatant commanders?
    Answer. If confirmed, I will consult with senior officers from the 
National Guard and the Reserves to assist me as advisors on National 
Guard and Reserve matters.
    Question. What is your view about making the CNGB a member of JCS? 
What is your rationale for this opinion?
    Answer. I do not recommend that the CNGB be a member of JCS. Due to 
the impact that the National Guard has on national security, I believe 
the CNGB should be invited to participate in JCS discussions when Guard 
equities are addressed in a similar fashion as the Commandant of the 
Coast Guard. In addition, if I am confirmed, the CNGB will have full 
access to me and the upper echelons of the Joint Staff.

                     RELIANCE ON RESERVE COMPONENT

    Question. The men and women of the Reserve component have performed 
superbly in meeting the diverse challenges of the global war on 
terrorism. Such a heavy use of the Reserve components however could 
have potential adverse effects on recruiting, retention, and morale of 
Guard and Reserve personnel.
    What is your assessment of the impact of continuing Guard and 
Reserve deployments on the readiness and attractiveness of service in 
the Guard and Reserve?
    Answer. The men and women of our Active and Reserve Force are 
performing superbly. The prolonged demand on certain capabilities 
resident in the Guard and Reserve is a serious concern. Of note, the 
highest retention percentages in the Reserve components come from units 
that have deployed for Operation Enduring Freedom and Operation Iraqi 
Freedom--clearly, these servicemembers understand the importance of 
their service and are volunteering again to continue to serve their 
country. We must continue to ensure our personnel receive strong 
support from their civilian employers, provide support for their 
families, and we must also continue to closely monitor recruiting and 
retention. I would like to thank the employers of the Reserve Force for 
their understanding during this time of national need. The Armed Forces 
will continue to need their support during this long war.
    To decrease demand on the Reserve component, the Department has 
several initiatives underway which help alleviate additional burden on 
the Guard and Reserve including: (1) rebalancing of forces, (2) 
modularization for a better deployment rotation base, (3) new training 
and certification procedures for our Army Guard and Reserves prior to 
mobilization to maximize their utility while minimizing their total 
time away from home, and (4) increases in the Active component.
    I understand that the Department is working hard to deal with the 
prolonged demand on certain capabilities resident in the Guard and 
Reserve. Secretary Gates redefined the mobilization policy when he 
issued the ``Utilization of the Total Force: memorandum on 19 January 
2007. In this memorandum, Secretary Gates identified the following:

          1. Setting the length of involuntary mobilization at a 
        maximum of 12 months for Reserve component units;
          2. Mobilizing ground forces on a unit versus individual 
        basis;
          3. Establishing a planning objective with a ratio of 1 year 
        of mobilization followed by 5 years of ``dwell time'';
          4. Establishing a new program to compensate, or provide for 
        incentives to members required to mobilize or deploy early or 
        often, or be extended beyond established rotation policy goals;
          5. Reviewing hardship waiver programs to ensure they are 
        properly taking into account exceptional circumstance; and
          6. Minimizing the use of stop loss as a force management 
        tool.

    Implementing these six areas will provide increased predictability 
for our citizen soldiers, their civilian employers, and their families.
    Readiness within the Reserve components continues to be strong 
within the community-based forces. If confirmed, I will continue to 
monitor recruiting and retention in both our Active component and 
Reserve component forces.
    Question. What missions, if any, do you consider appropriate for 
permanent assignment to the Reserve component?
    Answer. The Reserve components must be able to operate across the 
full spectrum of conflict, and reflect their parent services total 
force capabilities. The Nation has made a tremendous investment in its 
military members. These highly trained individuals who, if they choose 
to leave the Active components of their Services upon completion of 
their obligated commitment, can re-serve America in their specialties 
in the Guard and Reserve if these components mirror the full 
capabilities of their services.

                   END STRENGTH OF ACTIVE-DUTY FORCES

    Question. In light of the manpower demands of Operations Enduring 
Freedom and Iraqi Freedom, what level of active-duty personnel (by 
Service) do you believe is required for current and anticipated 
missions?
    Answer. The Services, Joint Staff, and OSD have looked at this 
impact and have brought forward their force structure recommendations. 
The Army and Marine Corps have planned growth that is consistent with 
the future demands expected to be placed on our ground forces. This 
planned growth is partially offset by limited manpower reductions in 
the Navy and Air Force. If confirmed, I will continue to work with the 
Services to determine the right size force as current and anticipated 
missions change.
    Question. How do you assess the progress made to date by the 
Services in finding ways to reduce the numbers of military personnel 
performing support functions that can better be performed by civilian 
employees or contractors?
    Answer. The conversion from military to civilian manpower has been 
ongoing for some time. Military-to-civilian personnel targets are the 
result of collaborative reviews and analyses between OSD and the 
Services. This process has been effective and, as it is collaborative 
with the Services, I believe it is working toward an effective balance 
of personnel helping to accomplish the Department's mission.
    Question. What manpower savings can be achieved through reductions 
in overseas presence, application of technology, and changes in roles 
and missions?
    Answer. As we continue to shape our force in response to the 
changing roles and missions around the world, there will continue to be 
adjustments to where we posture our forces. If confirmed, I will work 
with the Service Chiefs and the Department to evaluate the global 
environment and make recommendations to the Secretary of Defense 
regarding the appropriate placement of our forces to assist in carrying 
out our Nation's global engagement strategies.
    Question. What is your assessment about the feasibility and 
advisability from a cost standpoint of increasing the end strength of 
the Army to 547,000 and the Marine Corps to 202,000?
    Answer. I support the planned growth in both the Army and Marine 
Corps as we move toward a 2-to-1 force rotation metric. The two 
Services have planned for and are prepared for the mission of 
increasing their end strength. The President's budget submission has 
included the costs associated with this needed growth of our ground 
forces.
    I fully realize the pressure that manpower accounts place on the 
Department's budget. Salaries, health care, and other supporting 
infrastructure all come at a cost, but it is my belief that our 
soldiers and marines, and their families, are deserving of the relief 
afforded by a greater end strength.

                        RECRUITING AND RETENTION

    Question. The ability of the Armed Forces to recruit highly 
qualified young men and women and to retain experienced, highly 
motivated commissioned and noncommissioned officers is influenced by 
many factors, and is critical to the success of the All-Volunteer 
Force. While retention in all the services has remained strong, 
recruiting data in 2007 have shown increasing difficulty for the Army, 
Army Reserve, Army National Guard, Navy Reserve, and Air National Guard 
in meeting monthly recruiting goals. The Active-Duty Army in particular 
is facing difficulties, failing to meet its target for May and June.
    What do you consider to be the most important elements of 
successful recruiting?
    Answer. I believe the most important elements of successful 
recruiting are: tapping the reservoir of patriotism by providing the 
opportunity to serve the Nation; offering America's best and brightest 
the chance to serve in a proud and respected profession; possessing a 
properly resourced cadre of highly motivated and trained recruiters; 
having complete access to the recruiting pool; offering a competitive 
compensation and benefits package; and providing the opportunity for 
young men and women to achieve skills, education, and experience. In 
addition to these efforts, it is important that we get our message of 
service to those with the greatest influence on our candidate pool: the 
parents, teachers, coaches, and spiritual leaders.
    Question. What recommendations, if any, do you have to improve 
recruiting for the ground forces?
    Answer. I appreciate the tools that Congress has provided (such as 
increased recruiting bonuses and raising the maximum enlistment age) 
because they are proving valuable to recruiting efforts. I believe we 
will have to increase the incentives. The dynamic recruiting 
environment will remain very competitive, and the Services continue to 
explore methods to improve recruiting. We look forward to the continued 
support from Congress to give the Department the flexibility needed to 
adjust as needed to meet this critical mission.
    Question. How can the Department better target and reach the 
``influencers''--the parents, teachers, and coaches who influence our 
young men and women, and their career choices?
    Answer. The entire Department and our Nation's senior leaders must 
reach out to, and engage, the American people--especially parents, 
teachers, coaches, and clergy--to help them understand and appreciate 
the critical function our All-Volunteer Force provides to our Nation. 
We need a national campaign to succeed here. We all need to be 
recruiters.
    Question. What do you consider to be the most important components 
in the success of all the Services in retaining experienced junior 
officers, petty officers, and noncommissioned officers?
    Answer. I believe the most important components in retaining 
experienced junior officers, petty officers, and noncommissioned 
officers are:

          (1) challenge them with great responsibilities;
          (2) properly compensate them;
          (3) provide for a balance that permits them to achieve 
        balance in their lives;
          (4) provide an environment of support for their families: 
        good schools, good housing, and good medical care;
          (5) achieve 2:1 dwell time for our ground forces; and
          (6) the continued support of American people and the value 
        that our Nation places on the service and sacrifice of all 
        servicemembers and their families.

    As with recruiting, we are very grateful for the tools provided by 
Congress as they are critical to continued success in the retention of 
our force.
    Question. In your opinion, what impact is the current recruiting 
environment likely to have on our ability to sustain an All-Volunteer 
Force?
    Answer. The All-Volunteer Force has served this Nation well for 34 
years. It will continue to do so. It provides a force that is 
intelligent, motivated, and dedicated, and meets our Nation's needs.

                          MENTAL HEALTH ISSUES

    Question. The final report of the DOD Task Force on Mental Health 
issued in June 2007 found evidence that the stigma associated with 
mental illness represents a ``critical failure'' in the military, 
preventing individuals from seeking needed care. The report states, 
``Every military leader bears responsibility for addressing stigma; 
leaders who fail to do so reduce the effectiveness of the 
servicemembers they lead.''
    If confirmed, what actions would you take to ensure addressing the 
stigma associated with mental illness in the military?
    Answer. Mental illness as a result of combat operations' needs to 
be addressed and treated just like any other medical condition. Every 
leader in DOD needs to conform to this line of thought. If confirmed as 
Chairman, I intend to provide strong leadership to ensure that we 
address this issue.
    Question. What is your view of the need for revision to military 
policies on command notification and self-disclosure for purposes of 
security clearances?
    Answer. Personal mental health issues cannot be ignored and as an 
institution, DOD must directly address this issue. While mental health 
questions need to asked and investigated for security clearances, a 
balance needs to be established between mental health issues that have 
a high possibility to be detrimental to national security and mental 
health issues that the member recognizes and is actively seeking help. 
If confirmed, I will review current policies to ensure the policies do 
not institutionalize a mental health stigma.

                                  IRAQ

    Question. What is your assessment of the current situation facing 
the United States in Iraq?
    Answer. In recent months, there has been a steady improvement in 
the security lines of operation evidenced by both empirical data 
(metrics) and the sense of the commanders. However, there is very 
limited progress in reconciliation, which remains the precondition to 
an Iraq that can govern, defend, and sustain itself and be an ally in 
the war on terror. Execution of the governance and economic lines of 
operation has been largely unsatisfactory, albeit nascent governmental 
institutions and a lack of experience with the democratic process 
hamper them. Current indications are that the Iraqi leadership is still 
struggling in its ability to move forward with reconciliation and that 
this political process will take time. The Iraqi political process is 
the key enabler that must be a focus of our effort.
    Question. From your perspective, what are the top lessons learned 
from our experience in Iraq?
    Answer. We face determined, agile enemies in Iraq. Achieving the 
desired end-state will require a sustained and integrated interagency 
effort as well as unity of effort with the Iraqi Government. Effective 
strategic and operational planning by the interagency and with both our 
coalition partners and the Iraqi Government is critical to our success.
    The evolving regional strategic landscape requires the 
reconstitution of our strategic depth and flexibility. We must ensure 
we have the capacity to act in the future.
    Achieving progress in Iraq and furthering broader U.S. regional 
interests are inextricably linked. Slow progress in Iraq is undermining 
U.S. credibility and weakening efforts to achieve regional objectives.
    Question. What do you consider to be the most significant mistakes 
the United States has made to date in Iraq? Which of these do you 
believe are still having an impact? What do you believe could be done 
now to mitigate such impact?
    Answer. I believe the most significant mistakes to date are:

          (1) Did not fully integrate all elements of U.S. national 
        power in Iraq;
          (2) Focused most attention on the Iraqi national power 
        structures with limited, engagement of the tribal and local 
        power structures;
          (3) Did not establish an early and significant dialogue with 
        neighboring countries, adding to the complex security 
        environment a problematic border situation;
          (4) Disbanded the entire Iraqi Amy, a potentially valuable 
        asset for security, reconstruction, and provision of services 
        to the Iraqi people, providing a recruiting pool for extremist 
        groups;
          (5) Pursued a de-Baathification process that proved more 
        divisive than helpful, created a lingering vacuum in 
        governmental capability that still lingers, and exacerbated 
        sectarian tensions;
          (6) Attempted to transition to stability operations with an 
        insufficient force; and
          (7) Unsuccessful in communicating and convincing Iraqis and 
        regional audience of our intended goals.

    I believe many of these are still having an impact. The void left 
by a disbanded Iraqi Army and has not yet been filled by the Iraqi 
security forces, allowing sectarian violence to continue in too many 
areas.
    I believe that pursuing a balanced strategy in Iraq, with full 
interagency support, and an aggressive strategic communications plan 
can mitigate this impact.
    Question. What do you believe are the most important steps that the 
United States needs to take in Iraq?
    Answer. Our approach must be consistent with enduring United States 
vital and regional interests. We must commit to a long-term security 
relationship with Iraq that facilitates political reconciliation, 
supports development of a stable Iraq, and is directly tied to our 
enduring long-term interests in the region.
    We must work through the interagency and regional partners to 
expand Iraqi governance and economic capacity. This effort must be 
centered on developing effective incentives and disincentives (and 
associated measures of effectiveness) to influence Government of Iraq 
(GOI), Iraqi factions/leaders, regional states, as well as Syria and 
Iran.
    We must continue our long-term fight against al Qaeda, contain the 
sectarian conflict within the borders of Iraq, and prevent large scale 
civil war and the resultant humanitarian crisis.
    Question. Do you believe that there is a purely military solution 
in Iraq, or must the solution be primarily a political one?
    Answer. No, there is no purely military solution in Iraq. The 
enormous complexity, historic differences, competing views of the 
future Iraq, and lack of trust in new institutions will require long-
term political and social solutions. In the near term, political 
progress requires demonstrated commitment to national reconciliation in 
order to address:

          (1) de-Baathification and lack of proportional Sunni 
        representation in the Government, Army, and Police;
          (2) Equitable distribution of oil revenue; and
          (3) Amnesty.

    Question. Do you believe that political compromise among Iraqi 
political leaders is a necessary condition for a political solution?
    Answer. Yes. Compromise is a key to advancing solutions to the 
political issues facing Iraq. For Iraq to progress politically, their 
politicians need to view politics and democracy as more than just 
majority rule, winner-take-all, or a zero-sum game.
    Question. Do you believe that quelling the current level of 
violence in Baghdad is a necessary condition for a political solution?
    Answer. I believe that Baghdad is the center of gravity and that 
reducing violence there is an essential enabler. However, as violence 
is contained, there are two follow-on conditions required to 
stabilizing the situation and facilitating an Iraqi political solution:

        <bullet> The GOI, with Coalition support, must make progress 
        toward reconciliation, eliminating the insurgency, decrease the 
        levels of sectarian, and intra-Shia violence, and set 
        conditions for the transfer of responsibility to GOI and Iraqi 
        security forces (ISF).
        <bullet> We must achieve unity of effort within the U.S. 
        Government (interagency), among coalition partners, and between 
        the coalition and the Iraqi Government.

    Progress toward reconciliation and associated reductions in 
sectarian and intra-Shia violence is vital; failure to achieve tangible 
progress toward reconciliation requires a strategic reassessment.
    Question. What do you believe will induce Iraqi political leaders 
to make the political compromises necessary for a political solution? 
What leverage does the United States have in this regard? We cannot 
impose political change upon the Iraqi political leadership.
    Answer. We can, however, create the conditions of security that 
help facilitate Iraqi political reconciliation. We are seeing the 
beginning of this in the neighborhoods of Baghdad that have been 
stabilized. A moderate degree of normalcy is returning and within those 
areas, we are seeing increased cooperation between the local Iraqis and 
the ISF and coalition forces.
    We can also leverage our demonstrated commitment to a secure Iraq 
to host a regional conference on Iraq. Together with regional 
leadership, we could develop effective incentives and disincentives 
(and associated measures of effectiveness) to influence the GOI, Iraqi 
factions/leaders, and regional states.
    The U.S. can forge regional political and economic support to the 
GOI to further encourage GOI reconciliation. This regional approach 
could seek to revive reconstruction funding, encourage business and 
financial partnerships, and encourage additional support from neighbors 
(e.g., establish embassies, direct investment, development assistance, 
debt forgiveness, Iraqi ministry development, etc).
    Some Iraq leaders are becoming increasingly intransigent as they 
posture themselves for what they perceive to be our near-term 
withdrawal. A U.S. lever to counter this intransigence and facilitate 
political reconciliation would be a demonstrated commitment to our 
enduring interests in Iraq and the region (e.g. work with the GOI to 
achieve a long-term security agreement that supports our mutual 
interests).
    Inducing the fractured Iraqi leadership to move forward on 
reconciliation will be difficult and it will take time. We do have some 
powerful levers available to us including security guarantees, 
financial incentives, favorable trade status, etc. However, these 
levers may not be strong enough to outweigh the deep-seated mistrust 
among the main political factions.
    Question. What do you believe are the prospects for Iraqi political 
leaders to make those compromises and, if made, what effect do you 
believe this would have toward ending the sectarian violence and 
defeating the insurgency?
    Answer. I believe that the Iraqi political leadership, left to 
their own internal processes, will have great difficulty achieving the 
trust required to compromise and move forward on reconciliation. 
Political and economic progress in Iraq will require patience, 
persistence and a commitment measured in years not months. Our 
strategies and force structure must be aligned to facilitate a lengthy 
Iraqi political reconciliation process while addressing our own vital 
interests in Iraq relative to the region: degradation of al Qaeda 
(Iraq) and containment of the conflict.
    Political reconciliation will be achieved when a sufficient level 
of trust and compromise has been reached among the leadership of the 
main political factions in Iraq. The ability to compromise is a key 
enabler that will facilitate governance and decisionmaking. When the 
GOI reaches this milestone, the leadership of political factions will 
turn away from violence as a method for advancing their agenda, and 
sectarian violence should decline precipitously. Without considerable 
U.S., international and regional support and pressure, successful 
reconciliation is unlikely in the near-term.
    Question. What role, if any, did you play in the development of the 
new Iraq strategy announced by the President earlier this year?
    Answer. We had rigorous and thorough discussions and debates. I met 
personally with the President and the Secretary of Defense in a 
thorough discussion along with the other Joint Chiefs. The President 
then made his decision, and I am in support of that decision and 
working to make it succeed.
    Question. With regard to the recent ``surge strategy,'' what role 
will you have, if confirmed, in proposing or recommending changes to 
the strategy? What role will you have in deciding or recommending when 
U.S. troops can begin to reduce and transition to new missions?
    Answer. If confirmed as Chairman, my role is to advise the 
President and the Secretary of Defense this includes proposing or 
recommending changes to strategy, troop reductions, or mission 
transitions. I intend to be engaged from day one. I intend immediately 
to go to the theater in order to more clearly understand conditions on 
the ground.
    Question. What do you see as a reasonable estimate of the time it 
will take to demonstrate success in securing Baghdad?
    Answer. I believe that we are demonstrating success in Baghdad 
today. We have made progress toward breaking the cycle of sectarian 
violence and eliminating al Qaeda strongholds in the city. Sectarian 
violence is down below pre-surge levels. I will need to engage the 
Commander U.S. Central Command and the Commander Multi-National Forces-
Iraq in order to achieve a more complete view on our way ahead and the 
associated timetable.
    Question. If confirmed, how would you craft an ``exit strategy'' 
for U.S. forces in Iraq? What are the necessary pre-conditions; how 
would you phase the redeployment; and what residual forces would be 
needed for what period of time, and for what purposes over the long-
term?
    Answer. U.S. vital interests in the region and in Iraq require a 
pragmatic, long-term commitment that will be measured in years not 
months. The fight against al Qaeda (Iraq), containment of the conflict, 
and prevention of full-scale civil war and attendant humanitarian 
catastrophe necessitate a sustained force presence within Iraq.
    Following the September reports from the combatant and operational 
commanders, we must assess the current strategy and our ability to 
support both our primary strategic objectives and the attainment of a 
democratic Iraq that can govern, defend and sustain itself and be an 
ally in the war on terror. Our way forward in Iraq must be consistent 
with and supportive of our broader regional interests.
    Question. What is the state of planning for such an ``exit 
strategy?'' If none has begun, will you require that such planning 
begin?
    Answer. If confirmed, I will take a very active role in all 
existing and contingency planning efforts.
    Question. What role will you play, if any, in an ongoing assessment 
of the capability of Iraqi security forces to take on more of the 
security responsibilities?
    Answer. If confirmed, I will work with the combatant commander in 
the assessment of Iraqi security forces.
    Question. What is your understanding of U.S. policy with respect to 
the arming and support of Sunni militia forces against al Qaeda in al 
Anbar province and elsewhere in Iraq? What would you recommend in this 
regard?
    Answer. It is my understanding that coalition forces are not arming 
Sunni militias. I believe we should continue our strong support for 
local Police Support Units (PSU) in al Anbar province and other areas 
where the Ambassador and Commander, Multi-National Force-Iraq (MNF-I) 
support this concept. Indigenous forces are the key to success in the 
Iraqi counterinsurgency as demonstrated in al Anbar, which has 
witnessed an 80-percent decrease in enemy attacks since this time last 
year. We must continue to focus our efforts in supporting homegrown 
police and security forces in Iraq.
    Question. What considerations will be factored into a decision 
regarding whether (and if so, what kind and how much) U.S. military 
equipment currently in Iraq should be left behind for use by the Iraqi 
Army?
    Answer. Equipment/material will be screened for redistribution in 
theater. Items of military value will be retrograded in accordance with 
applicable Military Regulations.
    Equipment will also be screened for sufficient service life/
residual value to ensure retrograde is a fiscally sound course of 
action. If not sufficient, we will then consider transfer to the Iraqi 
Army.
    Additionally, equipment that has undergone significant upgrade 
since being deployed to theater (e.g. Uparmored HMMWVs, medium and 
heavy trucks, etc.) may also be screened for transfer.
    There are some other types of nonmilitary equipment managed by 
contractors (e.g. generators, living trailers, tents, etc). These will 
also be screened for transfer/donation to the ISF per Annex D of MNF-I 
Framework Operation Order (OPORD).
    Finally, certain non-military equipment/material that is deemed to 
have significant value to help stimulate the Iraqi economy, will also 
be screened for transfer/donation in accordance with Annex D of MNF-I 
Framework OPORD.
    Question. In the National Defense Authorization and Appropriation 
Acts for Fiscal Year 2007, Congress prohibited the use of funds to seek 
permanent bases in Iraq or to control the oil resources of Iraq.
    Do you agree that it is not and should not be U.S. policy to seek 
permanent basing of U.S. forces in Iraq or to exercise control over 
Iraq's oil resources?
    Answer. I agree with U.S. policy not to seek permanent military 
bases in Iraq or to control Iraq's oil resources.
    Question. If you agree, what are your views on the construction of 
any additional facilities inside Iraq for use by our military forces?
    Answer. I view any construction the U.S. undertakes in Iraq as 
temporary basing of our forces. If confirmed, I will engage the GOI on 
a long-term security relationship.
    Question. Is the United States military capable of sustaining 
present force levels in Iraq and Afghanistan without breaking the 
force?
    Answer. If confirmed, I will provide the Secretary of Defense and 
the President my best military advice as our campaign progresses 
regarding our missions and the appropriate force levels necessary to 
achieve them. Of particular concern is the stress on the force. The 
Army currently has a 15:12 month dwell ratio. The Marine Corps has a 
7:7 month dwell ratio. My goal, if confirmed, is resetting the dwell 
ratio to 2:1.
    Question. Are you concerned about the negative impact of the 
perceived occupation of a Muslim nation by the United States and its 
western allies?
    Answer. Yes. I am concerned about negative perceptions. In order to 
change the negative impact, it is necessary to see the issues through 
the eyes of the Muslim community and recognize their particular 
concerns. If confirmed, I will work to bolster our strategic 
communications.

                              AFGHANISTAN

    Question. What is your assessment of the long-term prospects for 
Afghan military forces to effectively provide a secure environment for 
a democratically elected government to function?
    Answer. Recent International Security Assistance Force (ISAF) and 
United States military efforts disrupted the Taliban's spring surge and 
eliminated key leadership. Efforts like these are helping create the 
stability necessary for eventual transition of security control from 
NATO to the Afghanistan security forces (ASF). Challenges remain 
however, including Taliban sanctuaries inside Afghanistan and Pakistan, 
along with al Qaeda and Iranian support to the Taliban. We must do 
everything necessary to ensure the success of NATO and facilitate their 
continued long-term commitment.
    Question. What, if any, types of military assistance would you 
recommend in addition to current efforts?
    Answer. We must work with our NATO allies to both fill the 
requirements stated in the NATO Combined Joint Statement of 
Responsibilities and reduce operational caveats. In addition to 
military forces, it is critical that the United States, NATO and the 
international community provide the supporting enablers that build 
Government of Afghanistan capacity and integrate security operations 
with governmental and economic development.
    Question. What steps do you believe coalition forces and the 
international community need to take in the near-term to improve the 
lives of the Afghan people?
    Answer. Reinforcing the Government of Afghanistan's ability to 
protect and provide for the Afghan people is critical to marginalizing 
the insurgency and creating a secure environment. The international 
community has agreed to assist in the development and strengthening of 
many vital institutions.
    We have a critical need for trainers to support the Afghan National 
Army (ANA) and Afghan National Police (ANP), ministerial level mentors 
to develop Afghan Government capacity, and the ability to execute 
critical infrastructure projects which include roads, power, and rural 
development.
    Question. News reports indicate that there is growing Afghan 
resentment over civilian deaths resulting from U.S. counterterrorism 
operations and U.S. or NATO air strikes. Are you concerned that these 
reports of civilian deaths are undermining efforts to win the support 
of the Afghan people for the mission in Afghanistan? What steps, if 
any, do you believe ought to be undertaken to address the issue of 
civilian deaths in Afghanistan?
    Answer. Yes. I am concerned about civilian deaths. Our military 
commanders in Afghanistan exert considerable efforts to avoid civilian 
casualties. These efforts include:

        <bullet> Continuously reevaluating our operational and tactical 
        approaches to ensure that the operational benefits outweigh the 
        potential damage to overall strategic goals that could result 
        from civilian casualties;
        <bullet> Investigating every incident to determine if 
        procedures were followed or if they need to be revised; and
        <bullet> Coordinated, credible post-incident reports are 
        conducted, followed by rapid reporting of conclusions, lessons, 
        and investigations.

    Question. In November 2006, the U.N. and World Bank released a 
report on the drug industry in Afghanistan. In February, the Center for 
Strategic and International Studies released a report on Afghanistan, 
which included recommendations regarding the counterdrug policy.
    What is your opinion of the conclusions and recommendations of 
these reports as they relate to the effectiveness of international 
military efforts to help Afghanistan combat illegal drug production and 
trafficking?
    Answer. I agree with the broad conclusions that a comprehensive 
``smart'' CN strategy is essential in order to combat illegal drug 
production and trafficking.
    Question. Should international military forces have an explicit 
counterdrug mission? If so, should its focus be on interdiction, 
capturing drug lords, and destroying drug facilities? If not, what is 
the appropriate role for the military?
    Answer. The current NATO/ISAF Operation Plan specifically 
prescribes the military support to counternarcotics (CN) mission, that 
includes the following sharing CN information; supporting the CN 
information campaign; provision of enabling support to air & ground 
lift for CN personnel and equipment; and supporting Afghan Government 
CN operations.
    Question. If the U.S. military were to take on the mission of 
capturing drug lords and dismantling drug labs in Afghanistan, what 
would be the impact on the drug trade in Afghanistan?
    Answer. I believe our forces currently deployed to Afghanistan 
should remain focused on stabilization and ANSF development missions.
    Question. What can DOD and the military do--via the Provincial 
Reconstruction Teams or other means--to support the counterdrug efforts 
of other agencies in those areas?
    Answer. It is my assessment that DOD should continue its support to 
CN operations in Afghanistan and work closely with the interagency to 
support CN programs through continued funding of National Interdiction 
Unit (NIU) training.

                                PAKISTAN

    Question. In your view, should the Pakistan Government be doing 
more to eliminate safe havens for the Taliban, al Qaeda, and other 
extremists in its tribal areas and elsewhere in Pakistan and to prevent 
them from conducting cross-border incursions into Afghanistan?
    Answer. Yes. Although the GOP has recently addressed AQ sanctuaries 
and Taliban leadership in their border areas, expansion of the GOP's 
partnership with ISAF and the Government of Afghanistan is needed to 
support Afghanistan stability. We must continue to support the growth 
to their Frontier Corps and recognize that the GOP political situation 
is very complex with competing demands hindering its ability to fully 
support United States goals. If confirmed, I will provide any requested 
assistance to the GOP in its fight in the global war on terror and 
extremism.

                                  IRAN

    Question. What options do you believe are available to the United 
States to counter Iran's growing influence in the Middle East region?
    Answer. The United States can leverage common interests and 
objectives with our regional partners. These include:

        <bullet> Regional security
        <bullet> Freedom of navigation
        <bullet> Access to markets
        <bullet> Assured access to oil and other resources
        <bullet> Stable, unified Iraq
        <bullet> Resolution of the Middle East Peace Process

    We also share common regional concerns:

        <bullet> Islamic extremism and the destabilizing influence from 
        Iranian sponsorship of Hezbollah, Hamas, and the Taliban;
        <bullet> Iranian exploitation of Shia populations and the 
        growing Sunni-Shia rift;
        <bullet> Iranian hegemony and nuclear aspirations.

    Iran is central to these concerns and remains the principal 
destabilizing factor in the region. These commonalities of interests 
and concerns should be leveraged to develop a regional cooperative 
security capability while at the same time establishing a dialogue with 
Iran to explore peaceful options.
    Question. Do you believe that a protracted deployment of U.S. 
troops in Iraq, if the situation on the ground in Iraq does not 
improve, could strengthen Iran's influence in the region?
    Answer. A protracted deployment of U.S. troops to Iraq, with no 
change in the security situation, risks further emboldening Iranian 
hegemonic ambitions and encourages their continued support to Shia 
insurgents in Iraq and the Taliban in Afghanistan. Growing Coalition 
successes on the ground in Iraq should mitigate this risk and improve 
the credibility of our message to create a regional security construct 
to counter Iranian destabilizing activity.
    Question. In your view, does Iran pose a near-term threat to the 
United States by way of either its missile program or its suspected 
nuclear weapons programs?
    Answer. I am concerned that these programs potentially threaten our 
allies and U.S. interests in the region. Iran's continued sponsorship 
of regional terrorism coupled with it quest for a nuclear capability 
reinforces the importance of continued deterrence mechanisms including 
theater ballistic missile defense.
    Question. If you believe either of these programs pose a near term 
threat, what in your view are the best ways to address such a threat?
    Answer. I am concerned with Iran's aggressive posture and 
destabilizing activities. I support current international and regional 
diplomatic and financial measures to counter Iranian behavior now to 
preclude confrontation in the future.
    Question. Other than nuclear or missile programs what are your 
concerns, if any, about Iran?
    Answer. As articulated above, Iran remains the principal 
destabilizing factor in the region. In the last year Iran has supported 
actions by Hezbollah in Lebanon, Hamas in Gaza, the Taliban in 
Afghanistan, and insurgent factions in Iraq. Iran is likely to leverage 
geographic proximity and our regional partners' fear of reprisals and 
threats of economic disruption to counter regional objections to their 
hegemonic and nuclear ambitions. We must bolster our regional friends 
and allies to counter these concerns and thwart Iran's destabilizing 
activities.

                            CHINESE MILITARY

    Question. What do you believe are the objectives of the Chinese 
military modernization program?
    Answer. China is a rising power in the world. We should have no 
doubts about that. As China grows economically, we can expect that they 
will want a military capable of protecting their national interests. 
Those interests include, first and foremost, Taiwan, but also disputed 
areas in the South China Sea. They also recognize their growing 
economic interdependence with the rest of the world. Their economic 
development depends on an assured supply of energy and other natural 
resources.
    Question. What do you believe are China's global political-military 
objectives and specifically its objectives regarding Taiwan and the 
Asia-Pacific region?
    Answer. Rising Chinese military power is not just a U.S.-China 
issue; it is an issue of interest to the entire Asia-Pacific region. 
China increasingly understands the importance of stability in the Asia-
Pacific region. In that respect, we welcome China's positive 
contributions in the Six-Party Talks on Korea, and its participation in 
some international peacekeeping operations.
    That said, China has refused to renounce the use of force against 
Taiwan and its sustained military build-up across the Strait risks 
disrupting the status quo. While China's near-term focus appears to be 
on Taiwan, long-term trends suggest China is building a force scoped 
for operations beyond Taiwan. Many of China's neighbors are watching 
Chinese military modernization and adjusting their plans and 
expenditures. Conflict between China and its neighbors could 
potentially erupt over disputed territories, resource rights, or 
energy. In response, our one-China policy insists on a peaceful 
resolution of cross-strait differences. How do you believe the United 
States should respond to the Chinese military modernization program?
    Answer. As the QDR stated, China has the greatest potential to 
compete militarily with the United States and field disruptive military 
technologies that could, over time, offset traditional U.S. military 
advantages. We do not want to overreact but at the same time, we must 
not under react. Our strategy seeks to encourage China to make the 
right strategic choices for its people, while we hedge against other 
possibilities.
    Another response must be greater engagement between our militaries. 
We need to avoid a situation where neither side understands the plans 
and intentions of the other, and where we are prey to misunderstandings 
of the other's goals. I hosted my Chinese Navy counterpart in 
Washington in April and plan to travel to China myself next month. I 
told Admiral Wu that I hoped our navies could cooperate in areas where 
we have common concerns, starting with areas such as disaster relief. 
Interaction at the Service Chief level needs to be complemented with 
increasing contacts throughout our militaries. Let us bear in mind that 
the American military continues to be pre-eminent in the world; we 
should not exaggerate the challenge we face from a modernizing China 
and a modernizing military. We need China to be much more transparent 
than has occurred thus far.
    Question. What changes, if any, do you believe that DOD should make 
in the quality or quantity of military-to-military relations with 
China, and why?
    Answer. President Bush has said that we welcome a China that is 
``peaceful and prosperous.'' We have called upon China to be a 
``responsible stakeholder'' in the international system. To that end, 
we are increasing cooperation in some areas and need to address with 
the Chinese candidly those areas where we do have differences. That 
means engaging with the Chinese military as broadly as possible, 
reaching out to establish relationships with the next generation of 
People's Liberation Army (PLA) officers.
    This is not a one-way exchange, however. The lack of transparency 
is a real problem. China's defense budget is increasing by double-digit 
percentages per year. At issue is not the amount of increase, but the 
discrepancy between the official budget and what China actually does--
the lack of transparency--which drives uncertainty and questions of 
Chinese intent. I hope the next generation of our military will have 
considerably greater exposure to China; we need a cadre of Chinese-
language officers in all our services who are expert in this region.
    Question. In your view, what can the United States do to increase 
transparency on the part of the Chinese military?
    Answer. We need to increase engagement between the PLA and the U.S. 
military. We have other senior level dialogues with China--on 
economics, for instance, where we have candid and even frank 
discussions of issues where we have differences. We should be as open 
with the Chinese as they are willing to be with us. I would like to 
regularize military discussions with the Chinese, to allow us to build 
trust over time. That is the best way to encourage transparency in 
their activities.

                                COLOMBIA

    Question. U.S. military personnel have been involved in the 
training and equipping of Colombian military forces involved in 
counter-narcoterrorism operations. U.S. military personnel, however, do 
not participate in or accompany Colombian counter-drug or counter-
insurgency forces on field operations in Colombia.
    What changes, if any, would you recommend for the role of the U.S. 
military in Colombia?
    Answer. If confirmed, I would make no immediate changes to the role 
of the United States military in Columbia. I believe the most 
appropriate role for the United States military is to continue to 
address systemic deficiencies in the training and employment of the 
Colombian armed forces.
    Question. What is your assessment of the progress achieved by the 
Colombian armed forces in confronting the threat of narcoterrorism?
    Answer. I believe the Colombian armed forces have progressed well 
over the last few years. United States training and equipment as well 
as intelligence support and planning advice have contributed 
significantly to this progress.
    The Colombian Military's (COLMIL) Plan Patriota offensive now 
called Plan Consolidation the largest in the Nation's history, 
continues to pressure FARC in its base areas. The COLMIL has captured 
key nodes and dominates mobility corridors, denying FARC access to 
support and population. A number of FARC, National Liberation Army 
(ELN), and United Self-Defense Groups of Columbia (AUC) high value 
targets have been killed or captured. Colombian police are now present 
in all 1,098 municipalities.
    Colombia's 2007 defense budget is 5.8 percent of GDP as compared to 
2006 when it was 5.4 percent of GDP. This represents a 12-percent 
increase in defense expenditures, from $7.11 billion to $7.96 billion. 
Since President Uribe took office, the Colombian Armed Forces have 
recruited over 100,000 new members. Finally, over 30,000 members of the 
illegal armed groups have demobilized.
    The COLMIL has made significant progress fighting narco-terrorists, 
and their rapid expansion has enabled the Government of Colombia to 
reestablish control of its territory and restore government presence 
and services.
    While the COLMIL is more ``forward-leaning'' than ever, their 
mettle will continue to be tested as the illegal armed groups, 
primarily FARC, resort to new tactics in order to undermine the 
government's democratic consolidation plan.

                       U.S. RELATIONS WITH RUSSIA

    Question. U.S. relations with Russia are strained over a variety of 
issues.
    If confirmed do you believe that there are any opportunities to 
improve relations through military to military programs, or are there 
any other actions that you would recommend be taken?
    Answer. Yes. I believe the United States and Russian militaries 
have made progress in the area of military cooperation since 2003 when 
Presidents Bush and Putin directed their respective military chiefs to 
focus on creating the capability to conduct combined military 
operations for future missions.
    This progress has been steady and tangible and certainly sets a 
positive tone for other constructive security cooperation with Russia. 
This cooperation has been personally directed by the United States and 
Russian Presidents through the Presidential Action Checklist and has 
yielded results.
    I have witnessed the effects of establishing a relationship with my 
counterpart in the Russian Navy in my capacity as the Chief of Naval 
Operations. As a result of personal engagement, relations between 
Admiral Masorin, the Commander in Chief of the Russian Federation Navy, 
and me have fostered an increasing level of trust and openness. Admiral 
Masorin is scheduled to conduct a counterpart visit here in the U.S. in 
August, which will be the first one since 1996. This type of engagement 
has enabled open discussions on topics varying from new concepts like 
the 1,000 Ship Navy to more sensitive topics including Black Sea 
engagement. If confirmed, I will continue to develop this kind of 
relationship with my counterpart in Russia as well as in other 
countries.
    Question. In your view, are there any specific programmatic areas, 
such as missile defense, further nuclear reductions, or space programs, 
where cooperation with Russia could be beneficial?
    Answer. I believe it is essential that we continue to encourage the 
Russian Government to cooperate in addressing the emerging threat to 
both our Nations from the proliferation of ballistic missiles and 
weapons of mass destruction. This includes missile defense and 
enhancing counterterrorism cooperation with Russia.
    If nuclear reductions will continue in a predictable and 
transparent fashion, the potential exists to build trust and confidence 
in the management of our respective strategic nuclear infrastructures.
    I believe space programs offer an opportunity of mutual benefit. If 
confirmed, I will recommend that we continue to seek out joint programs 
on which we can cooperate, given the advanced technological capacities 
of both our Nations.

                     REDUCTIONS IN NUCLEAR WEAPONS

    Question. The United States has made a commitment to reduce the 
number of operationally deployed nuclear warheads.
    Do you believe reductions in the total number of warheads in the 
stockpile are also feasible? If your answer is yes, how should 
capabilities and requirements be evaluated to identify which warheads 
and delivery systems could be retired and dismantled?
    Answer. Yes. I am confident that the total number of weapons in our 
stockpile can be reduced by developing a new triad composed of 
offensive strike system, active and passive defenses, and a responsive. 
These actions will allow us to preserve a credible deterrent with which 
to meet our national security requirements and our obligations to our 
allies, and reduce the overall size of our stockpile.
    If confirmed, I will work closely with OSD, the National Nuclear 
Security Administration (NNSA), the Services, and combatant commands to 
evaluate our nuclear force structure options with a broad view toward 
the integration of non-nuclear and nuclear strike forces, missile 
defenses, and a responsive infrastructure to reduce our reliance on 
nuclear weapons while mitigating the risks associated with drawing down 
United States nuclear forces.

                    STABILITY AND SUPPORT OPERATIONS

    Question. Operations in Iraq and Afghanistan have underscored the 
importance of planning and training for post-conflict stability and 
support operations. Increased emphasis has been placed on stability and 
support operations in DOD planning and guidance in order to achieve the 
goal of full integration across all DOD activities.
    What is your assessment of the Department's current emphasis on 
planning for post-conflict scenarios?
    Answer. The Department is explicitly addressing planning for post-
conflict scenarios as part of an aggressive implementation of 
Department of Defense Directive 3000.05, Military Support to 
Stabilization, Security, Transition, and Reconstruction Operations.
    Question. What role should the Joint Staff play in implementing the 
new directive regarding post-conflict planning and the conduct of 
stability and support operations?
    Answer. I believe the Joint Staff should assist OSD in supervising 
the implementation of the new directive by the Services and combatant 
commands.
    During the conduct of stability operations, the Joint Staff should 
assist in coordinating such things as logistics, coalition building and 
sustainment, and the provision of forces.
    If confirmed, I will direct the Joint Staff to provide me with 
analyses and insights pertaining to the policy, strategy, and progress 
of stability operations.
    Question. In your view, what is the appropriate relationship 
between DOD and other Federal agencies in the planning and conduct of 
stability and support operations in a post-conflict environment?
    Answer. In my view, and as stated in National Security Presidential 
Directive (NSPD)-44, it is critical that the Secretaries of State and 
Defense integrate stabilization and reconstruction contingency plans 
with military contingency plans when relevant and appropriate.
    I believe that honoring this general framework for fully 
coordinating stabilization and reconstruction activities and military 
operations at all levels is necessary and appropriate.
    Question. What lessons do you believe the Department has learned 
from the experience of planning and training for post-conflict 
operations in Iraq and Afghanistan?
    Answer. I believe the central lesson is the importance of post-
conflict planning and post-conflict training. In order to effectively 
plan and execute post-conflict operations we must understand their role 
in post-conflict operations.

            UNITED NATIONS CONVENTION ON THE LAW OF THE SEA

    Question. In May of this year, President Bush issued a statement 
urging the Senate to act favorably on U.S. accession to the Law of the 
Sea Convention.
    Do you support U.S. accession to the United Nations Convention on 
the Law of the Sea?
    Answer. Yes, I support United States' accession to the Law of the 
Sea Convention, and I believe that joining the Convention will 
strengthen our military's ability to conduct operations.
    Question. How would you answer the critics of the Convention who 
assert that accession is not in the national security interests of the 
United States?
    Answer. I believe that accession to the Law of the Sea Convention 
is in national security interest of our Nation. The basic tenets of the 
Law of the Sea Convention are clear and the United States Armed Forces 
reap many benefits from its provisions. From the right of unimpeded 
transit passage through straits used for international navigation, to 
reaffirming the sovereign immunity of our warships, providing a 
framework for countering excessive claims of other States, and 
preserving the right to conduct military activities in exclusive 
economic zones, the Convention provides the stable and predictable 
legal regime we need to conduct our operations today and in the future.
    The ability of United States military forces to operate freely on, 
over and above the vast military maneuver space of the oceans is 
critical to our national security interests, the military in general, 
and the Navy in particular. Your Navy's--and your military's--ability 
to operate freely across the vast domain of the world's oceans in peace 
and in war make possible the unfettered projection of American 
influence and power. The military basis for support for the Law of the 
Sea Convention is broad because it codifies fundamental benefits 
important to our operating forces as they train and fight:

        <bullet> It codifies essential navigational freedoms through 
        key international straits and archipelagoes, in the exclusive 
        economic zone, and on the high seas;
        <bullet> It supports the operational maneuver space for combat 
        and other operations of our warships and aircraft; and
        <bullet> It enhances our own maritime interests in our 
        territorial sea, contiguous zone, and exclusive economic zone.

    These provisions and others are important, and it is preferable for 
the United States to be a party to the Convention that codifies the 
freedoms of navigation and over flight needed to support United States 
military operations. Likewise, it is beneficial to have a seat at the 
table to shape future developments of the Law of the Sea Convention. 
Amendments made to the Convention in the 1990s satisfied many of the 
concerns that opponents have expressed.
    Since 1983, the United States Navy has conducted its activities in 
accordance with President Reagan's Statement on United States Oceans 
Policy, operating consistent with the Convention's provisions on 
navigational freedoms. If the United States becomes a party to the Law 
of the Sea Convention, we would continue to operate as we have since 
1983, and would be recognized for our leadership role in law of the sea 
matters. Joining the Law of the Sea Convention will have no adverse 
effect on the President's Proliferation Security Initiative (PSI) or on 
United States intelligence gathering activities. Rather, joining the 
Convention is another important step in prosecuting and ultimately 
prevailing in the global war on terrorism.

                         TREATMENT OF DETAINEES

    Question. The Constitution, laws, and treaty obligations of the 
United States prohibit the torture or cruel, inhuman or degrading 
treatment or punishment of persons held in U.S. custody.
    What steps, if any, do you believe the Joint Staff should take to 
ensure the humane treatment of detainees in DOD custody and to ensure 
that such detainees are not subjected to torture or cruel, inhuman, or 
degrading treatment?
    Answer. DOD has policies in place to require compliance with U.S. 
law concerning humane treatment of detainees in DOD custody. In a July 
7, 2006, memorandum, the Deputy Secretary of Defense required all 
components of the DOD to treat detainees in accordance with Common 
Article 3 of the Geneva Conventions. The 2006 DOD Directive (2310.01E) 
governing the Department's Detainee Program requires that all persons 
subject to the Directive to apply, at a minimum, the standards of 
Common Article 3 to detainees in the custody of the DOD. The Detainee 
Treatment Act of 2005 also prohibits the use of any interrogation 
technique not listed in the Army Field Manual on Intelligence 
Interrogation with any person in the custody of DOD. That manual has 
been revised, it is public, and it binds the operations of DOD.
    I believe the Joint Staff should work to ensure all United States 
military personnel engaged in detention operations comply with United 
States domestic law, the Law of War, and our international treaty 
obligations including the Prohibition on Torture and Cruel, Inhuman, or 
Degrading Treatment, and Common Article 3 of the Geneva Conventions.

                             FUTURE OF NATO

    Question. Over the past several years, NATO has experienced great 
changes. NATO has enlarged with the addition of seven new members from 
Eastern Europe and the Baltics, and has taken on an ambitious 
stabilization mission in Afghanistan, as well as a training mission in 
Iraq.
    In your view, what are the greatest opportunities and challenges 
that you foresee for NATO over the next 5 years?
    Answer. In my view, NATO has proven its relevance by its ability to 
transform from its Cold War posture to meet the out-of-area challenges 
of the 21st century. NATO's greatest opportunities--and challenges--lay 
in its ability to continue to transform in the coming years.
    Most critically, NATO must demonstrate that it can deliver the 
results needed in Afghanistan. NATO's military forces cannot alone 
provide the long-term solution, but must play a role together with 
other actors in the international community.
    In the area of military capabilities, NATO and Allied nations must 
continue to focus on expeditionary capacity. Enlargement of NATO and 
expanding Alliance relationships with partner nations of all types will 
present NATO with challenges and opportunities. Shaping how NATO 
engages with partners, from the Mediterranean Dialogue to global 
partnership initiatives, will in turn set the stage for future Alliance 
initiatives critical to Allied security.
    These opportunities will not come cheaply--which is perhaps one of 
the greatest challenges facing the Alliance. Most Allies spend little 
on defense. Transforming national militaries while also contributing 
them to ongoing Alliance operations far from home is an expensive 
prospect, but one that is absolutely critical to the future success of 
NATO.
    Question. Do you envision further enlargement of NATO within the 
next 5 years?
    Answer. Accession to NATO is a political question for the 26 NATO 
Allies.
    Question. What progress are the NATO member nations, particularly 
the new member nations, making with respect to transforming their 
militaries, acquiring advanced capabilities, and enhancing their 
interoperability with the U.S. and other NATO member nations?
    Answer. Most Allies (due to limited resources made available to 
defense ministries) are forced to make critical choices between 
spending money on transforming their militaries or on contributing to 
Alliance operations within existing capabilities.
    Many Allies, however, have been able to strike a delicate balance 
between these two choices, but with reduced effectiveness. The cost is 
that national transformational processes are delayed, or have key 
elements canceled, while contributions to operations are smaller, or 
less capable, than needed.
    The bottom line is that all but a few Allies meet the agreed-upon 2 
percent of GDP allocated for defense spending--if this target was met, 
across the board, almost all transformational and operation 
requirements could be met.
    Question. What steps could NATO take, in your view, to reduce 
tensions with Russia?
    Answer. I believe the NATO-Russia Council (NRC) can play a vital 
role in mitigating tensions with Russia by addressing key strategic 
issues, to include:

        <bullet> NATO and Russian perceptions of the ballistic missile 
        threat from the Middle East;
        <bullet> Cooperation in regional stabilization and 
        reconstruction efforts (e.g., in Iraq and Afghanistan);
        <bullet> Managing Russia's reaction to possible NATO 
        enlargement, as well as Russian suspicions about United States 
        and NATO activities in Europe and Central Asia; and
        <bullet> Determining how to best facilitate Russia's 
        fulfillment of its ``Istanbul Commitments'' in withdrawing 
        military forces from Moldova and Georgia.

                       BALLISTIC MISSILE DEFENSE

    Question. Section 234 of the Ronald W. Reagan NDAA for Fiscal Year 
2005 requires operationally realistic testing of each block of the 
Ballistic Missile Defense System (BMDS).
    Do you believe that in order to perform its intended function 
successfully, the BMDS, including each of its elements, needs to be 
operationally effective?
    Answer. Yes. I believe the United States has a viable initial 
operational capability and we are maturing the system toward a full 
operational capability. Thorough testing is critical to operational 
effectiveness, and, if confirmed, I will continue my commitment to 
testing as the BMDS evolves.
    Question. Do you believe that the United States should deploy 
missile defense systems without regard to whether they are 
operationally effective?
    Answer. In view of the threats we face, today and will face in the 
future, I believe the United States should deploy components of the 
BMDS as soon as they become available even as we improve their 
operational effectiveness. Due to our continuing successes with BMDS, I 
remain confident in our initial operational capability and its 
continued maturation.
    Question. Do you believe that operationally realistic testing is 
necessary to demonstrate and determine the operational capabilities and 
limits of the BMDS, and to improve its operational capability?
    Answer. Yes. I believe that operationally realistic testing is 
necessary to demonstrate and determine the operational capabilities and 
limits of the BMDS, and to improve its operational capability.
    Question. If confirmed, what steps, if any, would you take to 
ensure that the BMDS, and each of its elements, undergoes operationally 
realistic testing?
    Answer. If confirmed, I will work with the OSD, the Missile Defense 
Agency, the military Services, and the combatant commands to ensure 
operationally realistic testing is accomplished.
    Question. The military is supposed to play an important role in 
helping to determine requirements for our military capabilities, and to 
help determine the capabilities that will meet the needs of the 
combatant commanders for their operational plans.
    What do you believe should be the role of the military (as the 
warfighter) in helping to determine the requirements and force 
structure needs for our ballistic missile defense forces, including 
such elements as JCS, the combatant commands, the Joint Force Component 
Command for Integrated Missile Defense, and the military departments?
    Answer. I believe the military has a central role in helping to 
determine the requirements and force structure needs of our ballistic 
missile defense forces. The JCS provide military advice and oversight 
of requirements and force structure. The combatant commands integrate 
ballistic missile defense capabilities into operational plans and help 
formulate requirements.
    The Joint Force Component Command for Integrated Missile Defense 
plans, integrates, coordinates, and conducts ballistic missile defense 
operations for United States Strategic Command. The military Services 
and the Missile Defense Agency provide resources, support, and 
leadership to all elements of the BMDS.
    Question. If confirmed, what steps would you take to help ensure 
that U.S. missile defense forces and capabilities meet the needs and 
operational plans of the combatant commanders?
    Answer. If confirmed, I will work with OSD, the Missile Defense 
Agency, and United States Strategic Command as they continue to fully 
collaborate with the military Services and all combatant commands to 
ensure the needs of the warfighter are met, to include training, 
testing, wargaming, and conducting realistic exercises and simulations, 
to improve the capability and reliability of the missile defense 
system.
    Question. Section 223 of the John Warner NDAA for Fiscal Year 2007 
establishes that ``it is the policy of the United States that the DOD 
accord a priority within the missile defense program to the 
development, testing, fielding, and improvement of effective near-term 
missile defense capabilities, including the ground-based midcourse 
defense system, the Aegis BMDS, the Patriot PAC-3 system, the Terminal 
High Altitude Area Defense system, and the sensors necessary to support 
such systems.''
    If confirmed, what steps would you take to ensure that the 
Department complies with this policy requirement in its development and 
acquisition of missile defense capabilities?
    Answer. If confirmed, I will work with OSD, the Missile Defense 
Agency, the military Services, and the combatant commands to ensure the 
development, testing, acquisition, fielding, and improvement of 
effective near-term missile defense capabilities to meet the threats 
that we face today and will continue to face in the future.

                         ACQUISITION MANAGEMENT

    Question. Do you see a need for any change in the role of the 
Chairman or the Vice Chairman of JCS in the requirements determination, 
resource allocation, or acquisition management processes?
    Answer. No. I believe the role of the Chairman and the Vice 
Chairman of JCS in the requirements determination, resource allocation 
and acquisition management process is very effective. The processes are 
improving and are meeting future joint warfighting needs. If confirmed, 
I will focus on responsiveness to immediate and near-term joint 
warfighting needs by working closely with the Services in executing the 
joint urgent operational needs processes.
    I also view the Joint Requirements Oversight Council initiatives 
that provide enhanced assessments of proposed capabilities and weapon 
systems by considering not only the Key Performance Parameters, but 
also technology, cost, and schedule risks, increased emphasis on 
affordability, and the ``watch list'' to monitor program cost baselines 
as very likely to achieve improvement in acquisition management and 
fielding capability quicker.
    While I believe the Chairman and Vice Chairman roles are adequate, 
the Service Chiefs need to have more authority and control in 
acquisitions, by being placed in the acquisition chain-of-command.

                DEFENSE SCIENCE AND TECHNOLOGY PROGRAMS

    Question. Our investment in defense science and technology (S&T) 
programs is designed to support defense transformation goals and 
objectives and to ensure that warfighters of today and tomorrow have 
superior and affordable technology to support their missions and to 
give them revolutionary war-winning capabilities.
    Do you believe there is adequate investment in innovative defense 
science to develop the capabilities warfighters will need in 2020?
    Answer. Yes. The fiscal year 2008 S&T budget ($10.7 billion) 
represents approximately 2.3 percent of the Department's top line for 
fiscal year 2008 and is planned to increase by 8.8 percent during 
fiscal years 2008-2013.
    Question. Do you believe current Defense S&T investment is 
appropriately balanced between near-term and long-term needs?
    Answer. Yes. The fiscal year 2008 S&T budget is well balanced, with 
14 percent obligated for Basic Research, 40 percent for applied 
research, and 46 percent for applied technology development. This 
balance supports the Department's strategy to fulfill both near- and 
long-term S&T needs. The various S&T enterprises within the Department 
continue to deliver near-term solutions to the warfighter while 
maintaining a long-term perspective to research and develop 
capabilities for the future.

                         TECHNOLOGY TRANSITION

    Question. The DOD efforts to quickly transition technologies to the 
warfighter have yielded important results in the last few years. 
Challenges remain to institutionalizing the transition of new 
technologies into existing programs of record and major weapons systems 
and platforms.
    What are your views on the success of the Department's technology 
transition programs in spiraling emerging technologies into use to 
confront evolving threats and to meet warfighter needs?
    Answer. I would contend that the pace of globalization has 
accelerated the speed of war to the point that by fixating on today's 
threat, we run the risk of growing myopic and ineffective. To outpace 
the diverse and uncertain challenges we face now and in the future, we 
need an acquisition system capable of transitioning new technologies 
into existing programs to answer warfighter needs. While steps have 
been taken to meet these challenges, clearly more must be done. Our 
warfighters deserve this capability to confront evolving threats. If 
confirmed, I will ensure Service and agency leadership continue to 
embrace early transition planning and demonstrate methods for 
transitioning technology.
    Question. What more can be done to transition critical technologies 
quickly to warfighters?
    Answer. The Technology Transition Council has been re-engineered to 
execute a federated approach to coordinating transition efforts across 
the enterprise. If confirmed, I will continue to foster an environment 
of creative thinking needed to keep pace with the speed of war, 
delivering critical technologies to the warfighter.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Chairman of JCS?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Mark Pryor

                            MILITARY IN IRAQ

    1. Senator Pryor. Admiral Mullen, the debate over the global war on 
terror has led a few current military leaders to agree that there is no 
military solution for the war in Iraq. Do you agree with this 
statement?
    Admiral Mullen. Yes, there is no purely military solution in Iraq. 
The enormous complexity, historic differences, competing views of the 
future Iraq, and lack of trust in new institutions will require long-
term political and social solutions. In the near-term, political 
progress requires demonstrated commitment to national reconciliation in 
order to address:

         (1) de-Baathification and lack of proportional Sunni 
        representation in the Government, Army, and police;
         (2) Equitable distribution of oil revenue; and
         (3) Amnesty.

    2. Senator Pryor. Admiral Mullen, what recommendation would you 
make to the President and Secretary of Defense if General Patraeus' 
September report indicates no change in the status of combat operations 
in Iraq?
    Admiral Mullen. Our approach must be consistent with enduring 
United States vital and regional interests. We must commit to a long-
term security relationship with Iraq that facilitates political 
reconciliation, supports development of a stable Iraq, and is directly 
tied to our enduring long-term interests in the region.
    We must work through the interagency and regional partners to 
expand Iraqi governance and economic capacity. This effort must be 
centered on developing effective incentives and disincentives (and 
associated measures of effectiveness) to influence the Government of 
Iraq (GOI), Iraqi factions/leaders, regional states, as well as Syria 
and Iran.
    We must continue our long-term fight against al Qaeda, contain the 
sectarian conflict within the borders of Iraq, and prevent large scale 
civil war and the resultant humanitarian crisis.

                            REFUGEES IN IRAQ

    3. Senator Pryor. Admiral Mullen, since 2003 approximately 2 
million Iraqis have fled the country and 900,000 have been internally 
displaced. With another 90,000 Iraqis fleeing every month, what 
responsibility does the U.S. military have to ensure a secure 
reintegration of refugees returning to Iraq following a troop 
withdrawal?
    Admiral Mullen. I believe the United States should develop a long-
term relationship with Iraq, beyond our current operations. While the 
reintegration of Iraqi refugees into their society is the 
responsibility of the GOI, the continued support and involvement of the 
U.S., working in conjunction with the international community, is 
important to the reintegration of Iraqi refugees
    The U.S. and coalition can best support the GOI and their 
reintegration efforts by working together to achieve a level of 
security prior to withdrawal that would facilitate refugee 
reintegration and avoid a larger humanitarian crisis. To this end, U.S. 
and coalition forces should conduct contingency planning to address a 
humanitarian crisis should one occur.
    Given the sectarian divide within the Iraqi society, the GOIs 
ability to provide security and essential services to the people of 
Iraq is the key precursor to a successful reintegration effort.

    4. Senator Pryor. Admiral Mullen, how can we ever have a stable 
Iraq with this much flux across the border?
    Admiral Mullen. Iraq's borders are a tough issue, and we need to 
address securing the Iraq borders very deliberately, in a measured 
manner, while fully understanding the complex challenges in doing so. 
That said, I believe Baghdad is the center of gravity and that reducing 
the violence there is an essential enabler. As violence is contained, 
there are two follow-on conditions required to stabilize the situation 
and facilitate an Iraqi political solution:

         The GOI, with coalition support, must make progress toward 
        reconciliation, eliminating the insurgency, decrease the levels 
        of sectarian, and intra-Shia violence, and set conditions for 
        the transfer of responsibility to the GOI and ISF.
         We must achieve unity of effort within the U.S. Government 
        (interagency), among coalition partners, and between the 
        coalition and Iraqi Government.

    Progress toward reconciliation and associated reductions in 
sectarian and intra-Shia violence is vital; failure to achieve tangible 
progress toward reconciliation requires a strategic reassessment.

    5. Senator Pryor. Admiral Mullen, this committee recently approved 
the nomination of LTG Douglas Lute, USA, to the position of Assistant 
to the President and Deputy National Security Advisor for Iraq and 
Afghanistan. While the Chairman and Vice Chairman of the Joints Chiefs 
of Staff also act as advisors to the President, what relationship do 
you foresee having with General Lute and how does he fit into the 
military chain of command?
    Admiral Mullen. I foresee a collaborative, supportive working 
relationship with General Lute. In response to your second question, 
General Lute is not in the military chain of command. By title 10 (10 
U.S.C. 151) the Chairman is the ``principle military advisor to the 
President, the National Security Council, the Homeland Security 
Council, and the Secretary of Defense.''

                            NAVY OPERATIONS

    6. Senator Pryor. Admiral Mullen, do you believe the Navy's current 
Helicopter Master Plan, dated 1998, should be updated to address the 
realities of the global war on terror?
    Admiral Mullen. The Navy's 2002 helicopter concept of operations 
(CONOPs) combines the acquisition efficiencies of the 1998 Helicopter 
Master Plan, which reduces the number of helicopter types operated by 
the Navy from seven to two, with operational efficiencies achieved 
through the reorganization of squadrons to align them with the 
broadened warfighting requirements of Navy Carrier Strike Groups and 
Expeditionary Forces. The 2002 helicopter CONOPs was updated this year 
with a 2007 Navy Helicopter Force Analysis Study, which re-examined 
helicopter support for Sea Power 21 concepts including the Littoral 
Combat Ship (LCS) and global war on terrorism missions. This analysis 
study is currently under the Office of the Chief of Naval Operations 
(OPNAV) review and will be incorporated in the next Helicopter Master 
Plan.

    7. Senator Pryor. Admiral Mullen, how can the Navy operate with 
pre-September 11 master plan in a post-September 11 operational 
environment?
    Admiral Mullen. The Navy and Marine Corps have changed their 
operating philosophy to provide better defense in a post-September 11 
operational environment. The Navy published two versions of the Naval 
Operations Concept (NOC), both of which describe how the Navy/Marine 
Corps team will contribute to the defense of our Nation. The first 
edition of this document was signed in 2002 and entitled ``Naval 
Operating Concept for Joint Operations.'' The current version is the 
NOC 2006, and it refines and expands upon the 2002 version to deal with 
the dynamic post-September 11 security environment.
    The NOC is principally guided by national strategy as articulated 
in the National Security Strategy, National Defense Strategy, and 
National Strategy for Maritime Security. Specifically, this concept 
calls for more widely distributed forces to provide increased forward 
presence, security cooperation with an expanding set of international 
partners, preemption of nontraditional threats, and global response to 
crises in regions around the world where access might be difficult.
    The NOC espouses an approach for organizing and employing Navy and 
Marine Corps capabilities to meet the strategic challenges of the 
global war on terrorism. It seeks to make best use of the resources we 
have today to counter the existing threats in our current strategic 
environment. In short, the NOC is about how we are going to use what we 
have today differently to best fight and win the war on terror, 
positively participate in the global maritime community, yet remain 
prepared to counter or defeat future threats against the United States, 
be they traditional, irregular, disruptive, or catastrophic.
                                 ______
                                 
               QUESTIONS SUBMITTED BY SENATOR JOHN MCCAIN
                  NARROWBAND SATELLITE COMMUNICATIONS

    8. Senator McCain. Admiral Mullen, in his April 19, 2007, written 
testimony before the Subcommittee on Strategic Forces of the Senate 
Armed Services Committee, Vice Admiral James McArthur, USN, Commander 
of the Naval Network Warfare Command, noted the shortage of narrowband 
tactical satellite communications. To satisfy the increasing demand for 
tactical satellite communications, the Navy is developing a fleet of 
Mobile User Objective System (MUOS) satellites. The Government 
Accountability Office (GAO) has noted, however, that ``MUOS development 
has become time-critical due to the failures of two ultra high 
frequency (UHF) follow-on satellites. . . In June 2008, communications 
capabilities are expected to drop below those required, and remain so 
until the first MUOS satellite is available for operations in 2010.'' 
Is the Department of Defense (DOD) examining options for addressing 
this communications capability gap?
    Admiral Mullen. DOD has explored options to mitigate the UHF 
availability gap until full fielding of MUOS. Options under 
consideration include Integrated Waveform (IW), Leased Commercial 
Satellite Communications, and possible early fielding of MUOS capable 
terminals. The Department is currently fielding IW in two phases, with 
Phase I to be completed in 2008 and Phase II projected for completion 
in 2009. IW will provide higher channel throughput, better voice 
quality, capability to support more networks per channel (up to 14 
versus today's 1), enhanced flexibility to best configure a channel to 
support the mission, and greater ease of use and operation.

    9. Senator McCain. Admiral Mullen, does the Department believe MUOS 
will address the full tactical satellite communications needs of the 
Services after the constellation is fully operational? Or will 
bandwidth need continue to outpace capacity?
    Admiral Mullen. MUOS will provide a 10-fold increase in capacity 
over UHF follow-on, providing UHF mobile communications for our 
tactical users. MUOS will support almost 2,000 simultaneous worldwide 
accesses to meet our bandwidth requirements. Understanding that 
bandwidth need will always outpace available capacity, DOD is moving 
forward with fielding MUOS, implementing IW, and pursuing the lease of 
commercial satellite communications to minimize the disparity between 
bandwidth needs and available capacity.

    10. Senator McCain. Admiral Mullen, what are Department plans for 
mitigating the narrowband satellite communications gap in the near- and 
long-term?
    Admiral Mullen. To meet near-term requirements, the Department is 
implementing IW; pursuing Leased Commercial Satellite Communications; 
and early fielding of the MUOS capable terminals to mitigate the 
narrowband satellite communications gap until MUOS is fully 
operational. For the long-term, the Department is in the preliminary 
stages of determining the appropriate follow-on system for MUOS. The 
MUOS constellation consists of four satellites and one spare. Satellite 
design life is 10 years and projected satellite life span is up to 14 
years.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                        INTERAGENCY COOPERATION

    11. Senator Chambliss. Admiral Mullen, you mention in several 
places in response to your advance policy questions that one of your 
transformation goals is for DOD to address security challenges in 
cooperation with other interagency members. Several people have 
commented that this interagency cooperation is currently lacking, 
particularly in U.S. operations in Iraq and Afghanistan. What are some 
specific areas in which you would like to see interagency cooperation 
improve, and what will you do as Chairman to help facilitate this 
cooperation?
    Admiral Mullen. I believe more attention is required in the 
following areas:

         Reform efforts that focus on developing the capability to 
        prepare for, plan, and execute interagency approaches to 
        national and homeland security challenges.
         Ongoing efforts within the U.S. Government to develop 
        strategic planning and exercise capabilities, as well as 
        establishing protocols to achieve unity of effort between DOD, 
        the National Guard, and interagency partners in responding to 
        contingencies in the homeland.
         Development of domestic and global contingency plans to 
        address the pandemic environment for synchronizing United 
        States military response both within DOD and with our 
        interagency partners.

    As Chairman, I will facilitate this cooperation by providing the 
appropriate level of military support and leadership to the interagency 
effort.

    12. Senator Chambliss. Admiral Mullen, regarding Iraq, what are 
some specific ways that you believe interagency cooperation could 
expand the economic and governance capacity of the Iraqis?
    Admiral Mullen. We are already seeing successes at a local level in 
our Embedded Provincial Reconstruction Teams in Iraq, where interagency 
personnel from the State Department, U.S. Agency for International 
Development, and U.S. Department of Agriculture are being integrated 
into these teams embedded with Brigade Combat Teams. They are helping 
improve provincial budget execution, working with provincial councils, 
and engaging with former enemy combatants to broker bottom-up 
reconciliation. We need to continue this effort.
    At a national level, we have had less success. Staff at Embassy 
Baghdad and Multi-National Force-Iraq (MNF-I) are working hard with the 
GOI to improve the rule of law, execute their capital budget, and 
protect their critical infrastructure. Unfortunately, provisions of 
essential services have only improved slightly in many areas. To help 
improve these efforts, embedded advisors are now being placed inside 
key ministries: 26 advisors are in place, with another 20 embedded 
advisors on their way. The Iraq Transition Assistance Office has 94 
advisors dedicated to Iraqi ministries. In addition to these dedicated 
personnel, other officials, such as the Treasury Attache's Office, 
Embassy's Economic Section, and the joint MNF-I/Embassy Energy Fusion 
Cell have been tasked to develop the capacity of Iraqi ministries. This 
is a work in progress, but remains a very high priority.

                         RE-BASING INITIATIVES

    13. Senator Chambliss. Admiral Mullen, there has been a good deal 
of skepticism regarding the Pentagon's planning for the ``perfect 
storm'' caused by the culmination of rebasing initiatives. The 
implementation of the 2005 Base Realignment and Closure (BRAC) round, 
which includes the Integrated Global Presence and Basing Strategy 
initiative to restation 70,000 troops and their families from Europe 
and Korea to the U.S., Joint Basing initiatives, the Army and Marines' 
efforts to grow the force, and the redeployment of troops from Iraq and 
Afghanistan will all require military construction efforts that haven't 
been seen since World War II. Is DOD on track in its planning for 
rebasing?
    Admiral Mullen. The Department is on track in its planning for 
rebasing, even considering restationing 70,000 troops and their 
families from Europe and Korea to the United States, Joint Basing 
initiatives, the Army's and Marine's efforts to grow the force, and the 
redeployment of troops from Iraq. All BRAC 2005 recommendations are 
currently fully funded and on track to be implemented by the statutory 
deadline of 15 September 2011. Guidance has been published to update 
business plans based on execution realities, and these updates will 
continue through implementation. The Department continues planning for 
basing implications of the force growth in the continental United 
States and any potential timing implications for implementation of 
Integrated Global Presence and Basing Strategy decisions.

    14. Senator Chambliss. Admiral Mullen, what is the status of these 
efforts, and what do you see as the final outcome from the completion 
of these initiatives in terms of military quality-of-life?
    Admiral Mullen. The rebasing initiatives are on track. The scope of 
restationing 70,000 troops and their families from Europe and Korea, 
Joint Basing, growing the force, and the redeployment of troops from 
Iraq and Afghanistan is momentous. However, unit deployments and 
soldier, sailor, airman, marine, and family relocations are carefully 
choreographed. Throughout these rebasing initiatives, we have done our 
best to reduce the impact on the force.
    The Department has included, as an integral component, a number of 
important quality-of-life facilities in our construction projects over 
the next 3 fiscal years. As these projects are accomplished, we see 
significant improvement in the numbers and types of quality facilities, 
which provide places for our soldiers, sailors, airmen, marines, and 
civilians and their families to work, live, and train. Our people 
continue to make great sacrifices in fighting the global war on 
terrorism and our Nation owes them a debt of gratitude. We therefore 
see it as absolutely necessary to ensure we make every effort to match 
their quality of life with the quality of service they provide our 
Nation.

    15. Senator Chambliss. Admiral Mullen, is the plan to draw down 
troops in Europe outdated, given the ongoing war in Iraq and other 
world developments?
    Admiral Mullen. The current plan to draw down troops in Europe is 
under review, based on Commander, U.S. European Command's (EUCOM) 
concerns about meeting commitments within his area of responsibility. 
The Joint Staff, OSD, EUCOM, and headquarters, U.S. Army are currently 
reviewing U.S. troop strength in Europe. This review is based on 
concerns about changes that have taken place worldwide since the 2004 
Report to Congress on ``Strengthening U.S. Global Defense Posture.'' 
The recommendations from this review are expected by late September 
2007.

                              HELICOPTERS

    16. Senator Chambliss. Admiral Mullen, given the serious shortfall 
across the Services in vertical lift assets, what is your plan as 
Chairman to make certain we have the number and type of helicopters we 
need to fight the war on terror and ensure the safety of our 
warfighter? Do you consider this one of your top priorities?
    Admiral Mullen. The Services have identified their vertical lift 
requirements and our requirements, acquisition, and programming 
processes are hard at work acquiring and replacing vertical lift 
capability; searching for new, innovative means to provide the vital 
logistical and attack capabilities afforded by vertical lift assets. 
All vertical lift requirements in the Services are funded with the 
exception of the Air Force's CSAR-X which is involved in a GAO protest. 
The Air Force is currently meeting this requirement with the H-60H. 
Once the GAO protest is resolved, the Air Force will continue with 
procuring CSAR-X.
    I believe a comprehensive plan to identify, procure, and field 
future vertical lift assets is critical to fight the war on terror and 
ensure the safety of our warfighters.

    17. Senator Chambliss. Admiral Mullen, last year, the Navy 
completed an Analysis of Alternatives (AOA) that identified the need 
for a new medium lift helicopter to supplement the capability of the H-
60. I do not believe there has been any follow through on meeting this 
requirement. Where do we stand on this procurement, and what steps have 
been taken to fulfill the need identified by the AOA?
    Admiral Mullen. The Airborne Resupply/Logistics for the Sea Base 
AOA is currently being staffed for final Navy approval. The AOA 
addresses the heavy lift, medium range vertical lift requirement for 
the Sea Base, in anticipation of retiring the MH-53E, which provides 
heavy and medium lift support. Like the MH-53E, the material solution 
for a future heavy lift requirement could suffice for the medium lift 
requirement. The Navy is conducting additional vertical heavy lift 
requirements analysis and developing a vertical heavy lift CONOPs. 
Making a procurement decision with regard to vertical medium lift would 
be premature in advance of these competing initiatives.

    18. Senator Chambliss. Admiral Mullen, I am aware that the Navy's 
H-60 Sierra is having tremendous difficulty meeting the basic 
performance parameters for Airborne Mine Countermeasures (AMCM) 
mission--it's primary mission in conjunction with the LCS platform. Has 
the Navy done an assessment of other available medium lift helicopters 
to determine if there is an alternative to the H-60S that can meet the 
AMCM mission requirements at an equal or similar cost per flight hour? 
If not, when will such an analysis occur?
    Admiral Mullen. The H-60 Sierra is in the developmental test phase 
and is meeting performance characteristics for assigned missions. 
Significant effort is ongoing to integrate a suite of AMCM systems onto 
the MH-60S helicopter. The Navy continues to make progress in this 
effort, with each of the five AMCM systems in various stages of 
development. Contractor and developmental test evaluations for the MH-
60S/AQS-20A Organic AMCM mine hunting sonar have been successful; the 
system is scheduled to commence operational test in October. The 
process of integrating the MH-60S Airborne Mine Neutralization System 
is ahead of schedule. Appropriate progress is being made on the 
remaining three systems--Airborne Laser Mine Detection System, Organic 
Airborne and Surface Influence Sweep, and Rapid Airborne Mine Clearance 
System. The Navy does not have any plans to conduct analysis of other 
available medium-lift helicopters as an alternative to the current MH-
60S/AMCM solution.

    19. Senator Chambliss. Admiral Mullen, based on these shortfalls, 
do you believe the Navy's current Helicopter Master Plan, dated 1998, 
should be updated to address the realities of the global war on terror?
    Admiral Mullen. Yes. The Navy's 2002 Helicopter CONOPs combines the 
acquisition efficiencies of the 1998 Helicopter Master Plan, which 
reduces the number of helicopter types operated by the Navy from seven 
to two, with operational efficiencies achieved through the 
reorganization of squadrons to align them with the broadened 
warfighting requirements of Navy Carrier Strike Groups and 
Expeditionary Forces. The 2002 Helicopter CONOPs was updated this year 
with a 2007 Navy Helicopter Force Analysis Study, which re-examined 
helicopter support for Sea Power 21 concepts including the LCS and 
global war on terrorism missions. This analysis study is currently 
under OPNAV review and will be incorporated in the next Helicopter 
Master Plan.
                                 ______
                                 
    [The nomination reference of ADM Michael G. Mullen, USN, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 28, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as the Chairman of the 
Joint Chiefs of Staff and appointment to the grade indicated while 
assigned to a position of importance and responsibility under title 10, 
U.S.C., sections 152 and 601:

                             To be Admiral

    ADM Michael G. Mullen, 0000.
                                 ______
                                 
    [The biographical sketch of ADM Michael G. Mullen, USN, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
     Transcript of Naval Service for ADM Michael Glenn Mullen, USN

04 Oct. 1946..............................  Born in Los Angeles, CA
05 June 1968..............................  Ensign
05 June 1969..............................  Lieutenant (junior grade)
01 July 1971..............................  Lieutenant
01 Oct. 1977..............................  Lieutenant Commander
01 June 1983..............................  Commander
01 Sep. 1989..............................  Captain
01 Apr. 1996..............................  Rear Admiral (lower half)
05 Mar. 1998..............................  Designated Rear Admiral
                                             while serving in billets
                                             commensurate with that
                                             grade
01 Oct. 1998..............................  Rear Admiral
21 Sep. 2000..............................  Designated Vice Admiral
                                             while serving in billets
                                             commensurate with that
                                             grade
01 Nov. 2000..............................  Vice Admiral
28 Aug. 2003..............................  Admiral, Service continuous
                                             to date
 

Assignments and duties:

------------------------------------------------------------------------
                                                     From         To
------------------------------------------------------------------------
Fleet Training Center, San Diego, CA (DUINS)....   June 1968   Aug. 1968
Fleet Anti-Submarine Warfare School, San Diego,    Aug. 1968   Sep. 1968
 CA (DUINS).....................................
U.S.S. Collett (DD 730) (ASW Officer)...........   Sep. 1968   June 1970
Naval Destroyer School, Newport, RI (DUINS).....   June 1970   Feb. 1971
Nuclear Weapons Training Group, Atlantic,          Feb. 1971   Feb. 1971
 Norfolk, VA (DUINS)............................
U.S.S. Blandy (DD 943) (Weapons/Operations         Feb. 1971   Nov. 1972
 Officer).......................................
Fleet Training Center, Norfolk, VA (DUINS)......   Nov. 1972   Jan. 1973
Staff, Commander Service Force, U.S. Atlantic      Jan. 1973   Jan. 1973
 Fleet (DUINS)..................................
CO, U.S.S. Noxubee (AOG 56).....................   Jan. 1973   July 1975
U.S. Naval Academy, Annapolis, MD (Company         July 1975    May 1978
 Officer/Executive Assistant to Commandant).....
Ship Material Readiness Group, Idaho Falls, ID      May 1978   Oct. 1978
 (DUINS)........................................
U.S.S. Fox (CG 33) (Engineering Officer)........   Oct. 1978   Apr. 1981
Surface Warfare Officers School Command,           Apr. 1981   July 1981
 Newport, RI (DUINS)............................
XO, U.S.S. Sterett (CG 31)......................   July 1981   Jan. 1983
Naval Postgraduate School, Monterey, CA (DUINS).   Jan. 1983   Mar. 1985
Surface Warfare Officers School Command,           Apr. 1985    May 1985
 Newport, RI (DUINS)............................
CO, U.S.S. Goldsborough (DDG 20)................   June 1985   Oct. 1987
Naval War College, Newport, RI (DUINS)..........   Oct. 1987   Dec. 1987
Surface Warfare Officers School Command,           Dec. 1987   Sep. 1989
 Newport, RI (Director Surface Warfare Division
 Officer Course)................................
Office of the Secretary of Defense, Washington,    Sep. 1989   Aug. 1991
 DC (Military Staff Assistant to Director,
 Operational Test and Evaluation)...............
Harvard University Advanced Management Program..   Aug. 1991   Nov. 1991
Surface Warfare Officers School Command,           Nov. 1991   Nov. 1991
 Newport, RI (DUINS)............................
Tactical Training Group Atlantic (DUINS)........   Nov. 1991   Dec. 1991
COMNAVSURFLANT (DUINS)..........................   Dec. 1991   Jan. 1992
AEGIS Training Center, Dahlgren, VA (DUINS).....   Feb. 1992   Apr. 1992
CO, U.S.S. Yorktown (CG 48).....................   Apr. 1992   Jan. 1994
Bureau of Naval Personnel (Director, Surface       Feb. 1994   Aug. 1995
 Officer Distribution Division) (PERS-41).......
Office of CNO (Director, Surface Warfare Plans/    Aug. 1995    May 1996
 Programs/Requirements Division, N863)..........
Office of CNO (Deputy Director, Surface Warfare     May 1996   July 1996
 Division, N86B)................................
Tactical Training Group Atlantic (DUINS)........   July 1996   Aug. 1996
Commander, Cruiser Destroyer Group TWO..........   Aug. 1996    May 1998
Office of CNO (Director, Surface Warfare            May 1998   Oct. 2000
 Division) (N86)................................
Commander, Second Fleet/Commander, Striking        Oct. 2000   Aug. 2001
 Fleet Atlantic.................................
Office of CNO (Deputy Chief of Naval Operations    Aug. 2001   Aug. 2003
 for Resources, Requirements, and Assessments)
 (N8)...........................................
Vice Chief of Naval Operations..................   Aug. 2003   Oct. 2004
Commander, U.S. Naval Forces, Europe/Commander,    Oct. 2004    May 2005
 Joint Forces, Naples...........................
Perspective Chief of Naval Operations...........    May 2005   July 2005
Chief of Naval Operations.......................   July 2005     To date
------------------------------------------------------------------------


Medals and awards:
    Defense Distinguished Service Medal
    Distinguished Service Medal with one Gold Star
    Defense Superior Service Medal
    Legion of Merit with one Silver Star
    Meritorious Service Medal
    Navy and Marine Corps Commendation Medal
    Navy and Marine Corps Achievement Medal
    Navy Unit Commendation
    Meritorious Unit Commendation
    Navy ``E'' Ribbon with Wreath
    Navy Expeditionary Medal
    National Defense Service Medal with two Bronze Stars
    Armed Forces Expeditionary Medal
    Vietnam Service Medal with one Bronze Star
    Global War on Terrorism Service Medal
    Humanitarian Service Medal with one Bronze Star
    Sea Service Deployment Ribbon with three Bronze Stars
    Navy and Marine Corps Overseas Service Ribbon with one Bronze Star
    Republic of Vietnam Gallantry Cross Unit Citation with Bronze Palm
    Republic of Vietnam Civil Actions Unit Citation with Bronze Palm
    NATO Medal

Foreign awards:
    Italian Defense General Staff Joint Forces Medal of Honor

Special qualifications:
    BS (Naval Science) U.S. Naval Academy, 1968
    MS (Operations Research) Naval Postgraduate School, 1985
    Language Qualifications: Italian (Knowledge)

Personal data:
    Wife: Deborah Morgan of Sherman Oaks, CA
    Children: John Stewart Mullen (Son), Born: 30 April 1979; and 
Michael Edward Mullen (Son), Born: 29 December 1980.

Summary of joint duty assignments:

------------------------------------------------------------------------
              Assignment                          Dates            Rank
------------------------------------------------------------------------
Office of the Secretary of Defense,     Sep. 1989-Aug. 1991.....    CAPT
 Washington, DC (Military Staff
 Assistant for U.S. Navy Programs to
 the Director, Operational Test and
 Evaluation).
Commander, Second Fleet/Commander,      Oct. 2000-Aug. 2001.....    VADM
 Striking Fleet Atlantic.
Commander, U.S. Naval Forces, Europe/   Oct. 2004-May 2005......     ADM
 Commander, Joint Forces, Naples.
------------------------------------------------------------------------

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by ADM Michael G. 
Mullen, USN, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Michael Glenn Mullen.

    2. Position to which nominated:
    Chairman of the Joint Chiefs of Staff.

    3. Date of nomination:
    28 June 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    October 4, 1946; Hollywood, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Deborah Morgan Mullen.

    7. Names and ages of children:
    LT John Stewart Mullen, USN, 28; LT Michael Edward Mullen, USN, 26.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Navy Marine Corps Relief Society, Board Member.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    National Order of the Legion of Honor (France) awarded on May 12, 
2007.
    Grand Officer of the Order of the Italian Republic (Italy) awarded 
on April 14, 2007.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify before any duly constituted 
committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date

    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                         M.G. Mullen, Admiral, USN.
    This 29th day of June, 2007.

    [The nomination of ADM Michael G. Mullen, USN, was reported 
to the Senate by Chairman Levin on August 2, 2007, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on August 3, 2007.]
                              ----------                              

    [Prepared questions submitted to Gen. James E. Cartwright, 
USMC, by Chairman Levin prior to the hearing with answers 
supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. You previously have answered the committee's policy 
questions on the reforms brought about by the Goldwater-Nichols Act in 
connection with your nomination to be Commander, U.S. Strategic Command 
(STRATCOM).
    Has your view of the importance, implementation, and practice of 
these reforms changed since you testified to the committee at your most 
recent confirmation hearing for the position of Commander, U.S. 
STRATCOM?
    Answer. No. Overall, the Goldwater-Nichols reforms have clearly 
strengthened the warfighting and operational capabilities of our 
combatant commands (COCOMs) and our Nation. The importance of these 
reforms has not diminished with time.
    Question. Do you foresee the need for modifications of Goldwater-
Nichols in light of the changing environment? If so, what areas do you 
believe it might be appropriate to address in these modifications?
    Answer. I do not believe that changes to Goldwater-Nichols are 
necessary at this time. However, I am aware of ongoing reviews. If 
confirmed, I will study these efforts and provide my best military 
advice.

                                 DUTIES

    Question. What recommendations, if any, do you have for changes in 
the duties and functions of the Vice Chairman of the Joint Chiefs of 
Staff as set forth in section 154 of title 10, U.S.C., and in 
regulations of the Department of Defense (DOD) pertaining to functions 
of the Vice Chairman of the Joint Chiefs of Staff?
    Answer. None at this time.
    Question. Based on your experience as Commander, U.S. STRATCOM, 
what recommendations, if any, do you have for changes in chapter 6 of 
title 10, U.S.C., as it pertains to the powers and duties of combatant 
commanders?
    Answer. None at this time.

                             QUALIFICATIONS

    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. Thirty-six years of military service, to include diverse 
operational and staff assignments, have given me the background and 
experience to serve as the Vice Chairman of the Joint Chiefs of Staff. 
As the Joint Staff Director Force Structure, Resources and Assessment, 
I evaluated major acquisition programs and budgets and gained 
invaluable insight into the capability requirements development 
process. As Commander, U.S. STRATCOM, I have been responsible for the 
global command and control of United States strategic forces and worked 
to deliver a broad range of strategic capabilities and options to the 
President, Secretary of Defense, and geographic combatant commanders. 
My years of operational and strategic experience have given me the 
skills required to look to the future and assess the mix of 
capabilities to prevail as we move into the future as a Nation.

                             RELATIONSHIPS

    Question. Please describe your understanding of the relationship of 
the Vice Chairman of the Joint Chiefs of Staff to the following 
officials:
    The Secretary of Defense.
    Answer. As a member of the Joint Chiefs of Staff, the Vice Chairman 
performs the duties prescribed for him and other such duties as may be 
prescribed by the Chairman with the approval of the Secretary of 
Defense.
    Additionally, in the absence or disability of the Chairman, the 
Vice Chairman acts as the Chairman and performs the duties of the 
Chairman until a successor is appointed or until the absence or 
disability ceases. These duties include serving as the principal 
military adviser to the President, the National Security Council and 
the Secretary of Defense.
    As a member of the Joint Chiefs of Staff, the Vice Chairman may 
submit advice or opinions to the Chairman in disagreement with, or in 
addition to, the advice presented by the Chairman to the President, the 
National Security Council, or the Secretary of Defense. The Chairman 
submits such opinion or advice at the same time he delivers his own.
    The Vice Chairman, as a member of the Joint Chiefs of Staff may 
also individually or collectively, in his capacity as a military 
adviser, provide the Secretary of Defense advice upon the Secretary's 
request.
    Question. The Deputy Secretary of Defense.
    Answer. Under existing directives, the Deputy Secretary of Defense 
has been delegated full power and authority to act for the Secretary of 
Defense on any matters upon which the Secretary is authorized to act. 
As such, the relationship of the Vice Chairman with the Deputy 
Secretary is similar to that with the Secretary. In addition, the Vice 
Chairman co-chairs the Deputies Advisory Working Group with the Deputy 
Secretary of Defense to work key resource and management issues for 
DOD.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman performs the duties prescribed for him as 
a member of the Joint Chiefs of Staff and such other duties as 
prescribed by the Chairman with the approval of the Secretary of 
Defense. when there is a vacancy in the office by the Chairman, or 
during the absence or disability of the Chairman, the Vice Chairman 
acts as Chairman and performs the duties of the Chairman until a 
successor is appointed or the absence or disability ceases. If 
confirmed, I look forward to building a close and effective working 
relationship with the Chairman.
    Question. The Under Secretaries of Defense.
    Answer. Title 10, U.S.C., and current DOD directives establish the 
Under Secretaries of Defense as the principal staff assistants and 
advisers to the Secretary regarding matters related to their functional 
areas. Within their areas, Under Secretaries exercise policy and 
oversight functions. They may issue instructions and directive type 
memoranda that implement policy approved by the Secretary. These 
instructions and directives are applicable to all DOD components. In 
carrying out their responsibilities, and when directed by the President 
and Secretary of Defense, communications from the Under Secretaries to 
commanders of the unified and specified commands are transmitted 
through the Chairman of the Joint Chiefs of Staff.
    Question. The Assistant Secretaries of Defense.
    Answer. With the exception of the Assistant Secretaries of Defense 
for Public Affairs, Legislative Affairs, and for Networks and 
Information Integration, all Assistant Secretaries of Defense are 
subordinate to one of the Under Secretaries of Defense. In carrying out 
their responsibilities, and when directed by the President and 
Secretary of Defense, communications from the Under Secretaries to 
commanders of the unified and specified commands are transmitted 
through the Chairman of the Joint Chiefs of Staff. If confirmed, I will 
work closely with the Assistant Secretaries in a manner similar to that 
described above for the Under Secretaries.
    Question. The Secretaries of the military departments.
    Answer. Title 10, U.S.C., section 165, provides that, subject to 
the authority, direction, and control of the Secretary of Defense, and 
subject to the authority of the combatant commanders, the Secretaries 
of military departments are responsible for administration and support 
of forces that are assigned to unified and specified commands.
    The Chairman, or Vice Chairman when directed or when acting as the 
Chairman, advises the Secretary of Defense on the extent to which 
program recommendations and budget proposals of the military 
departments conform with priorities in strategic plans and with the 
priorities established for requirements of the COCOMs.
    Of particular interest, the Under Secretary of the Air Force acts 
as the Executive Agent for Space Program procurement, which is 
especially important to the Vice Chairman in the role as Chairman of 
the Joint Requirements Oversight Council (JROC). If confirmed, I 
recognize the importance of working closely with this senior official 
on vitally important space programs.
    Question. The Chiefs of Staff of the Services.
    Answer. As a result of the Goldwater-Nichols Act, the Service 
Chiefs are no longer involved in the operational chain of command. With 
respect to title 10 responsibilities, they serve two significant roles. 
First and foremost, they are responsible for the organization, 
training, and equipping of their respective Services. Without the full 
support and cooperation of the Service Chiefs, no combatant commander 
can be ensured of the preparedness of his assigned forces for missions 
directed by the Secretary of Defense and the President.
    Second, as members of the Joint Chiefs of Staff, the Chiefs are 
advisers to the Chairman and the Secretary of Defense as the senior 
uniformed leaders of their respective Services. If confirmed, I will 
work closely with the Service Chiefs and their Vice Chiefs to fulfill 
warfighting and operational requirements.
    Question. The combatant commanders.
    Answer. The combatant commanders fight our wars and conduct 
military operations around the world. The Chairman provides a vital 
link between the combatant commanders and other elements of DOD, and as 
directed by the President, may serve as the means of communication 
between the combatant commanders and the President or Secretary of 
Defense. When the Vice Chairman is performing the Chairman's duties in 
the latter's absence, he relates to the combatant commanders as if he 
were the Chairman.
    Question. The Special Assistant to the President/Deputy National 
Security Advisor for Iraq and Afghanistan.
    Answer. As an officer serving in an agency outside DOD, the Vice 
Chairman of the Joint Chiefs of Staff communicates to the Special 
Assistant to the President/Deputy National Security Advisor for Iraq 
and Afghanistan through the Secretary of Defense.
    Question. The Under Secretary of Energy for Nuclear Security.
    Answer. The Vice Chairman of the Joint Chiefs of Staff is a member 
of the Nuclear Weapons Council along with the Under Secretary of Energy 
for Nuclear Security. In this capacity, we will work together to 
oversee and coordinate the Nation's nuclear weapons policies to include 
the safety, security, and control issues for existing weapons and 
proposed new weapons programs.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that you 
would face if confirmed as Vice Chairman of the Joint Chiefs of Staff?
    Answer. Winning the global war on terrorism is the Nation's highest 
priority and our most pressing challenge. In this struggle, our Armed 
Forces play a leading role in protecting the Homeland; attacking and 
destroying terrorist networks; and countering ideological support for 
terrorism--which is the decisive element of the U.S. Government war on 
terrorism strategy.
    Major challenges include building partnership capacity with partner 
countries which reduce and defeat the threat of violent extremism, and 
also attempting to resolve ``whole of government'' issues in this 
campaign, to integrate all instruments of national power, influence, 
and capability.
    It is more efficient and effective to engage partner nations and 
make investments to shape the security environment and deter violent 
extremism than to commit U.S. forces in contingency operations. 
Operations in Iraq, Afghanistan, and elsewhere demonstrate the 
importance of building the capacity and capability of partners and 
allies to better secure and govern their own countries.
    A major challenge we face in Iraq is to be able to rapidly 
recognize and exploit new opportunities to make the reduction in 
sectarian violence and security self-sustaining.
    With regard to whole-of-government issues, we should continue to 
move forward in a collaborative effort to develop the right interagency 
mechanisms and authorities to better integrate all instruments of 
national power, influence, and capability and to meet critical national 
security needs.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will work to ensure that we deny terrorists 
the resources they need to operate and survive, enable partner nations 
to counterterrorism, deny WMD proliferation and increase our capacity 
for consequence management.
    In addition, we will continue to defeat terrorists and their 
organizations, counter State and non-State support for terrorism in 
coordination with other U.S. Government agencies and partner nations 
and contribute to the establishment of conditions that counter 
ideological support for terrorism.
    As a Nation, we should defeat violent extremist groups through the 
disruption of transnational violent extremist networks, increases in 
partner nation capacity and advances in government legitimacy until 
terror groups pose only a local threat and are incapable of attacks on 
the U.S. homeland, U.S. vital interests, or regional stability. Once 
these conditions are established, we can conclude combat operations and 
transition to an advisory role.
    We should further aim, through this advisory role to support 
foreign internal defense, deny the migration or expansion of violent 
extremist groups through continued increases in partner nation 
counterterrorism capacity and information sharing; by countering 
ideological support to terrorism; and by producing a long term 
development plan to reverse the underlying conditions that foment 
discontent. Once our partner nations achieve overmatch against terror 
groups, we can reduce our advisory presence to normal bilateral and 
regional status.
    We should support our partners through information sharing, 
cooperative counterterrorism operations and countering ideological 
support for terrorism. While DOD is not the lead Federal agency for 
this effort, the military can contribute significantly through security 
operations, humanitarian assistance, military-to-military contacts, and 
the conduct of operations and military information operations.
    We owe it to our soldiers, sailors, airmen, and marines to leverage 
all instruments of our defense arsenal to defeat our adversaries. In 
this regard, there have been some recent innovative steps to building 
partnership capacity, such as the section 1206 authority that allows 
the Defense and State Departments to more rapidly train and equip 
partner military forces.
    We must continue to build on the success of section 1206 by 
enacting the Building Global Partnerships act, which will help us meet 
critical national security needs.

                  JOINT REQUIREMENTS OVERSIGHT COUNCIL

    Question. If confirmed as the Vice Chairman of the Joint Chiefs of 
Staff, you would be the Chairman of the JROC. The JROC has the 
responsibility to validate Service requirements. As the Services 
transformation initiatives have matured, some have been approved for 
System Development and Demonstration (SDD) even though it appears that 
some programs lacked the technical maturity the programs require to 
transition into SDD.
    What background and expertise do you possess that you believe 
qualifies you to serve as the Chairman of the JROC?
    Answer. In my previous assignment to the Joint Staff as Director, 
Force Structure, Resources and Assessment Directorate (J-8), whose 
missions include serving as JROC Secretary and Chairman of the Joint 
Capabilities Board, I gained insight into the internal roles, missions, 
responsibilities, and processes of the JROC. As Commander, U.S. 
STRATCOM, I gained a new and invaluable perspective into how the JROC 
interacts with COCOMs. These most recent assignments provide me with 
unique experience and expertise to fulfill the role of Chairman of the 
JROC.
    Question. How would you assess the effectiveness of the JROC in the 
DOD acquisition process?
    Answer. The JROC is engaging the acquisition and programming 
communities earlier in the requirements process to improve JROC 
decisions and enhance oversight of acquisition programs. The JROC is 
performing an enhanced assessment of proposed capabilities and weapon 
systems by considering not only the Key Performance Parameters (KPPs), 
but also technology, cost, and schedule risks. These assessments ensure 
that warfighter requirements are realistic and that cost and schedule 
risks are reasonable. The JROC also considers overall affordability of 
a weapons system before approving performance requirements.
    Question. What is your vision for the role and priorities of the 
JROC?
    Answer. The direction for the JROC that Admiral Giambastiani 
charted is sound and I intend on building on the work already 
accomplished. Specifically, I am referring to the ``JROC Initiatives.'' 
These initiatives collectively assist the JROC in making better 
informed fiscal decisions, conducting more comprehensive assessments of 
the combatant commanders' warfighting issues and bringing stakeholders 
from the Department and interagency to the JROC to solve appropriate 
issues. My vision for the JROC is one that gets the JROC ahead of 
strategic issues. One initiative in particular is the list of Most 
Pressing Military Issues (MPMI), which serves as a focusing construct 
for issues that come before the JROC. The MPMI, which include items 
such as ``improve interagency coordination and planning to develop 
shaping strategies to assist nations at strategic crossroads'' and 
``improve information sharing to support operational forces and mission 
partners by improving bandwith and information sharing tools'' to name 
two, enable the JROC to provide priority guidance in solving COCOM and 
Department issues.
    Question. What changes, if any, would you recommend in the 
membership of the JROC?
    Answer. The JROC provides independent military advice to our senior 
leaders by deciding which issues become validated military requirements 
and which do not. I think the membership of the JROC is correct in 
order to provide an independent military voice. However, I would 
strongly support the JROC effort to bring together senior leaders, as 
advisors, from across the Department and the interagency, to inform the 
JROC in making more sound and affordable decisions. The incorporation 
of senior civilian leaders as advisors to the JROC is important, and 
will continue if I am confirmed as the Vice Chairman.
    Question. Do you believe the current JROC process has been able to 
adjust satisfactorily to a capabilities-based, vice threat-based, 
approach in determining requirements?
    Answer. The JROC has adapted well to Capabilities Based Planning 
(CBP). Using a capabilities methodology during the fiscal year 2008 
President's budget build, the JROC influenced the redistribution of 
$5.2 billion in support of our combatant commanders. Additionally, the 
JROC used a CBP approach in developing the list of MPMI which allows 
the JROC to get ahead of strategic issues for the combatant commanders 
and the department. However, we have room to improve, particularly 
through increasing the linkage of Joint Experimentation and Joint 
Concepts to acquisitions through the Joint Capabilities and Integration 
Development System.
    Question. Do you believe that the quantity of items required is 
appropriately addressed in the JROC process, so that the capability 
delivered by the item is present in appropriate numbers?
    Answer. Yes. When the JROC approves the Capabilities Development 
Document (CDD), the JROC approves the quantity of items needed to 
achieve the Initial Operation Capability and Full Operation Capability. 
The JROC's approval of a CDD is carried forward to the Defense 
Acquisition Board where the Defense Acquisition Executive makes the 
final decision on units to be procured.
    Question. As you likely know, the outgoing Vice Chairman of the 
Joint Chiefs of Staff instituted policies and programs directed at 
helping manage undesirable cost growth in certain major weapons 
systems. One example is an initiative that imposes cost growth flags 
for ``JROC Interest'' programs different from those triggered by Nunn-
McCurdy. Another example is an initiative that provides for expanded 
participation of other stakeholders in the resource allocation process, 
in the JROC. Still another example is an initiative that sought to 
achieve greater involvement by the combatant commanders throughout the 
requirements process.
    To what extent would you support and continue implementation of 
these, and any other such, initiatives?
    Answer. I would support the continued implementation of the full 
package of JROC initiatives previously instituted as they enable sound, 
strategy driven decisions. Additionally, these initiatives:

        <bullet> Establish priorities for the Department;
        <bullet> Ensure resource informed and constrained decisions;
        <bullet> Establish a process that is accountable and 
        repeatable;
        <bullet> Align and synchronize processes throughout the 
        Department;
        <bullet> Facilitate timely delivery of capabilities to the 
        joint warfighter;
        <bullet> Provide guidance on the MPMIs;
        <bullet> Better capture the COCOM's requirements and voice for 
        future warfighting capabilities; and
        <bullet> Bring stakeholders from across the Department and 
        interagency to the JROC to solve issues.

    Question. What principles would guide your approach to inviting, 
and helping ensure the sufficient participation of, other such 
stakeholders in the JROC?
    Answer. The guiding principles associated with JROC participation 
include:

        <bullet> Provide independent military advice to our civilian 
        leaders. To preserve the independent nature of this advice, the 
        voting membership of the JROC has been limited to the Nation's 
        senior warfighters responsible for training, manning, and 
        equipping our force;
        <bullet> Promote participation in the JROC process from across 
        the enterprise by informed stakeholders to ensure appropriate 
        context and comprehensive recommendations are provided to the 
        JROC; and
        <bullet> Promote utilization of Senior Warfighting Forums, 
        composed of the COCOM Vice Commanders to identify current and 
        future warfighting operational requirements.

    Question. Are there other such initiatives instituted by the 
outgoing Vice Chairman of the Joint Chiefs of Staff that you view as 
particularly likely, or unlikely, to be productive in achieving 
acquisition reform?
    Answer. Though still a pilot program, the Tri-Chaired Concept 
Decision initiative may provide tangible benefits in the acquisition 
reform arena by decreasing acquisition risk through the implementation 
of a corporate investment decision process.
    Question. The Defense Acquisition Performance Assessment (otherwise 
referred to as ``the Kadish Report'') recommended reviewing and 
modifying applicable regulations to require JROC approval to conduct 
Initial Operational Testing and Evaluation (IOT&E) in an environment 
other than that which was defined and documented in the Test and 
Evaluation Master Plan (TEMP) at the Milestone B decision. The Test and 
Evaluation community agrees that IOT&E requirements are defined by the 
TEMP, but takes the position that the Director of Operational Test and 
Evaluation and the service test agencies--not the JROC--are the 
appropriate arbiters of what the TEMP requires. What is your view of 
this issue?
    Answer. I would agree with DOT&E and the Service test agencies that 
they are the experts on how a system should be tested based on the KPPs 
in the CDDs that the JROC validates.

                         ACQUISITION MANAGEMENT

    Question. Do you see a need for any change in the role of the 
Chairman or the Vice Chairman of the Joint Chiefs of Staff in the 
requirements determination, resource allocation or acquisition 
management processes?
    Answer. I believe the role of the Chairman and the Vice Chairman of 
the Joint Chiefs of Staff in the requirements determination, resource 
allocation, and acquisition management process is effective. The 
processes themselves are continuously improving in meeting future joint 
warfighting needs. We are working on improving the responsiveness to 
the immediate and near term joint warfighting needs through the 
Services and joint urgent needs processes.
    Question. The committee has proposed various changes to DOD 
acquisition procedures that are included in title VIII of S. 1547, the 
National Defense Authorization Act (NDAA) for Fiscal Year 2008. 
Sections 801 through 805 would address major defense acquisition 
programs. If confirmed as the Vice Chairman of the Joint Chiefs of 
Staff, you would head the requirements community in helping the 
Department analyze and approve major defense acquisition programs.
    What is your opinion about whether these provisions, if enacted, 
would help the Department reform how it buys major weapons systems?
    Answer. I have not had an opportunity to review these provisions in 
detail, but if confirmed, I will work with the committee to enact the 
best legislation possible to improve acquisition procedures.
    Question. Which of these provisions, if any, do you have concerns 
about and why?
    Answer. I have not had an opportunity to review these provisions in 
detail, but I am concerned that section 801(a) would define 
``substantial savings'' for multi-year contracts and unnecessarily 
limit the contracting options available for large programs where 
significant taxpayer dollars could potentially be saved.
    Question. In February 2007 the Secretary of Defense submitted a 
report to Congress entitled ``Defense Acquisition Transformation Report 
to Congress''.
    If confirmed, to what extent would you support and continue 
implementation of the defense acquisition reform initiatives set forth 
in that report that directly involve the Vice Chairman of the Joint 
Chiefs of Staff or the JROC, in particular, the Tri-Chair Concept 
Decision initiative?
    Answer. If confirmed, I will fully support the defense acquisition 
reform initiatives set forth in the February 2007 ``Defense Acquisition 
Transformation Report to Congress'' that directly involve the Vice 
Chairman of the Joint Chiefs of Staff or the JROC, in particular, the 
Tri-Chair Concept Decision initiative pilot program. I believe this 
initiative shows promise in improving strategic investment decisions 
for potential major acquisition programs.
    Question. Are there other initiatives or tools discussed in the 
Defense Acquisition Transformation Report that you view as particularly 
likely, or unlikely, to be productive in achieving acquisition reform?
    Answer. There are a few other initiatives discussed in the Defense 
Acquisition Transformation Report that should be productive in 
achieving acquisition reform. One is the Requirements Management 
Certification Training Program being developed for military and 
civilian requirements managers with responsibility for generating 
requirements for major defense acquisition programs. This training will 
produce a consistent understanding between the warfighters, the 
acquisition community, and the resourcing community to improve delivery 
of capability to the warfighter.
    I also view the JROC initiatives that provide enhanced assessments 
of proposed capabilities and weapon systems by considering not only the 
KPPs, but also technology, cost, and schedule risks, increased emphasis 
on affordability, and the ``watch list'' to monitor program cost 
baselines as very likely to achieve improvement in acquisition 
management and fielding capability quicker.

                        NUCLEAR WEAPONS COUNCIL

    Question. If confirmed as Vice Chairman of the Joint Chiefs of 
Staff, you will serve as a member of the Nuclear Weapons Council.
    What would your priorities be for the Nuclear Weapons Council?
    Answer. If confirmed, I look forward to continuing my membership on 
the Nuclear Weapons Council in my new role as Vice Chairman.
    My priorities will be ensuring the national security interests of 
the United States continue to be met with a stockpile that is safe, 
secure, and reliable; improving the responsiveness of our national 
security infrastructure; and working with Congress to implement the 
Reliable Replacement Warhead (RRW) program.
    Together these initiatives will allow us to achieve effective 
deterrence at the lowest level of nuclear weapons consistent with our 
national security requirements, and fulfill our obligations to allies 
with a safe, secure, and modern arsenal.

                        JOINT OFFICER MANAGEMENT

    Question. The Chairman of the Joint Chiefs of Staff issued his 
vision for Joint Officer Development (JOD) in November 2005. The 
Secretary of Defense approved a Strategic Plan for Joint Officer 
Management and Joint Professional Military Education in April 2006, and 
published the DOD Joint Officer Management Joint Qualification System 
Implementation Plan on March 30, 2007.
    Is the 2005 Chairman of the Joint Chiefs of Staff Vision for JOD 
consistent with your views? If confirmed, will you revise this vision?
    Answer. It is consistent--the premise of JOD vision is to have a 
competency-based, lifelong continuum of learning . . . in a joint 
context. The goal of JOD is to ensure we have the largest possible body 
of fully qualified and inherently joint officers for joint command and 
staff responsibilities. If confirmed, I will continue to enforce the 
foundations addressed in the JOD vision to ensure our officers are 
strategically minded, critical thinkers, and skilled joint warfighters, 
and will remain committed to increase levels of joint competency and 
joint capabilities for all officers, both Active and Reserve.
    If confirmed, I will remain fully supportive of the JOD as it is 
written today. I also understand that developing our officers is a 
continuous process that will go through several iterations and reviews. 
I am committed to ensuring they are prepared to support the vision and 
strategy as laid out by the President and the Secretary of Defense.
    Question. What do you consider to be the principal issues addressed 
by the strategic plan, and, if confirmed, what objectives would you 
hope to achieve?
    Answer. The Strategic Plan modernizes joint officer development and 
management in the 21st century. Today's military is actively and 
decisively engaged in joint operations to an extent we never imagined. 
The joint force management infrastructure must be as dynamic as the 
environment in which the joint force operates to ensure we have the 
right mix of joint educated, trained, and experienced officers--the 
Strategic Plan recognizes this and meets the demands of today's robust 
environment.
    If confirmed, I will continue implementation of the new Joint 
Officer Management process, per the changes authorized in the NDAA for 
Fiscal Year 2007, to develop the flexible joint manpower structure we 
need to meet the ever-changing military environment. The Strategic Plan 
led to legislative changes enabling the new Joint Qualification System 
(JQS)--the JQS will be responsive to the warfighters in multi-Service, 
multi-national and interagency operations and produce the number of 
fully qualified and inherently joint officers we need. It builds on 
Goldwater-Nichols' traditional path to joint qualification and opens up 
the aperture by better recognizing the accrual of joint experience. 
Leaders developed through this new process will become our future joint 
leaders and strategic thinkers.
    Question. What do you consider to be the primary strengths and 
weaknesses of the requirements for joint professional military 
education with respect to qualification as a joint specialty officer?
    Answer. The Goldwater-Nichols Act correctly established Joint 
Professional Military Education, along with a joint duty assignment, as 
the standard for today's joint professional. For the past 20 years, 
officers have aspired to earn the Joint Specialty Officer designation. 
While the premise of that designation (that an officer be proficient in 
joint matters) remains the same, the title has changed under NDAA for 
Fiscal Year 2007 to ``Joint Qualified Officer. ``
    Joint education remains central to the development of Joint 
Qualified Officers--the strength of joint education is that it is at 
the heart of joint officer development and is a major pillar of the 
Joint Learning Continuum that also includes individual training, 
experience, and self-development.
    I understand the Chairman's responsibility under title 10, to 
ensure the necessary joint training and education of the Armed Forces 
to accomplish strategic and contingency planning and preparedness to 
conform to policy guidance from the President and the Secretary of 
Defense is critical to the defense of our Nation.
    The weakness is that we still have a challenge with capacity in 
delivery of Joint Professional Military Education (JPME) Phase II--with 
the size of our current military officer force today, the number of 
officers requiring JPME II far exceeds our capability to educate all 
officers at the JPME II level. We do have the ability to provide every 
officer, both Active and Reserve component, the opportunity to receive 
JPME Phase I credit, and have been granted, thanks to the Congress' 
approval, expansion of Phase II Joint education to the Senior Level 
Colleges' in-resident programs.
    Question. What is your assessment of the appropriate balance 
between education and experience in achieving qualification as a joint 
specialty officer?
    Answer. Both education and experience are critical to joint officer 
development. I believe that our system must be flexible enough to 
provide selected officers a tailored mix of the joint education, 
training and assignment opportunities they need to gain the experience 
and achieve the competency-level an organization requires to 
effectively fill critical joint positions.

                           REBALANCING FORCES

    Question. In a memorandum of July 9, 2003, the Secretary of Defense 
directed action by the Services, the Joint Staff, and the Office of the 
Secretary of Defense (OSD) aimed at achieving better balance in the 
capabilities of the Active and Reserve components. The Secretary noted 
that the Department ``needs to promote judicious and prudent use of the 
Reserve components with force rebalancing initiatives that reduce 
strain through the efficient application of manpower and technological 
solution based on a disciplined force requirements process.''
    What progress has been made in achieving the Secretary's vision?
    Answer. The Secretary's vision encompassed three principal 
objectives: rebalance the active and Reserve Forces to reduce the need 
for involuntary mobilization of the Guard and Reserve; establish a more 
rigorous process for reviewing joint requirements, which ensures that 
force structure is designed appropriately and requests for forces are 
validated promptly to provide timely notice of mobilization; and make 
the mobilization and demobilization processes more efficient.
    We have instituted a new process for assignment, allocation and 
apportionment of U.S. military forces to the COCOMs. The Global Force 
Management Process provides comprehensive insight into the total number 
of U.S. Forces available in our inventory forces and helps us match 
requirements with available forces. Sourcing solutions are developed 
and then approved at a quarterly Global Force Management Board designed 
to ensure the best options are selected to achieve desired effects.
    Additionally, the lessons learned during Operation Iraqi Freedom 
concerning Reserve mobilization and demobilization have been put into 
action. Specific recommendations were made, each with follow-on 
actions, to enhance the capability of the Department to mobilize and 
deploy Reserve Forces in the most effective manner possible. The 
Department has rewritten policies that have been included in the Global 
Force Management process. As part of this process, every Reserve 
deployment is reviewed for an effective alternative source of 
manpower--civilian, contractor, or volunteer.
    Rebalancing the force will continue to be an ongoing process. The 
Reserve components, and the Total Force, must always preserve the 
capability to operate across the full spectrum of conflict.
    Question. What do you consider to be the biggest continuing 
obstacles to achieving the goals that the Secretary of Defense has set 
forth in his memorandum?
    Answer. The biggest challenge is determining what capabilities we 
will need in the future and therefore, determining the appropriate 
balance between the active and Reserve components, while maintaining 
sufficient warfighting capability. To that end, rebalancing the force 
is an ongoing activity within the Department. The Department 
continually assesses its force structure and rebalancing within, and 
between, the active and Reserve components with the expressed purpose 
of improving readiness and deployability. Reserve component sources 
must be adequately resourced and prepared for anticipated requirements.
    Not since World War II has DOD called on the Reserve components to 
perform in such a high operational tempo, and they have performed in an 
exemplary manner. It is true that when you call out the Reserve 
component you call out the Nation, and they have answered that call. 
However, maintaining interoperability and providing the resources to 
train and equip the Reserve Forces to a single operational standard 
remains a Total Force imperative.

                          HEALTH CARE BENEFITS

    Question. In May 2007, The Task Force on the Future of Military 
Health Care issued an interim report concluding that ``To sustain and 
improve military health care benefits for the long run, actions must be 
taken now to adjust the system in the most cost-effective ways.'' Among 
other recommendations, the Task Force recommends increasing the portion 
of the costs borne by retirees under age 65, and suggesting an increase 
in military retired pay to offset part or all of the increase if 
Congress believes that the increases are too large relative to retired 
pay.
    What recommendations, if any, would you offer to address the 
increasing cost of health care and other personnel benefits?
    Answer. Our men and women in uniform make great sacrifices for 
their Nation, and their personnel benefits, to include compensation and 
health care programs, have always been a priority for me. The continued 
support of Congress, and the Nation, is greatly appreciated by our 
military servicemembers.
    The rising cost of health care is clearly an issue we need to work. 
DOD health care costs will grow from a projected $38 billion in 2008 to 
more than $65 billion by 2015. Because the Sustain the Benefit proposal 
was not approved, we are faced with a $17.4 billion budget deficit 
across the fiscal year 2009-2013 Program Objective Memorandum. If 
confirmed, I will continue to support the Under Secretary of Defense 
for Personnel and Readiness and the Assistant Secretary of Defense for 
Health Affairs as they lead the Department's ongoing effort to promote 
efficiency in both our direct health care and purchased care programs.
    The Task Force on Military Health Care's final report will be 
released in December. I look forward to reviewing those recommendations 
and will use the report findings to help shape an equitable plan to 
sustain the benefit.
    Question. If confirmed, what role would you anticipate playing in 
any shaping or rethinking of health care benefits for military 
personnel, including retirees and their families?
    Answer. We need to maintain a system that is flexible, effective, 
and cost-efficient to serve the needs of our military members, 
retirees, and their families.
    If confirmed, I look forward to continuing our efforts with 
Congress and the DOD to ensure military personnel can serve their 
nation with the knowledge that their health care benefits are secure. 
In this time of war, we are committed to providing the best care 
possible for our forces that are returning with combat injuries. I will 
also continue to support close cooperation between DOD and the 
Department of Veterans Affairs to improve care for our troops and for 
those who have left the Service.
    Question. How would you assess the impact of health care benefits 
on recruitment and retention of military personnel?
    Answer. The recruiting and retention environment is very dynamic 
and competitive, and a quality health care system is an important 
cornerstone in our overall benefits package. Maintaining our high-
quality, All-Volunteer Force is dependent on our ability to continue to 
attract and retain men and women with a desire to serve their Nation. 
Our health care benefits program clearly helps us in these efforts.
    Question. What role should the Chairman of the Joint Chiefs of 
Staff, as opposed to the service chiefs, play with respect to health 
care benefits?
    Answer. The Chairman of the Joint Chiefs of Staff's title 10 
responsibility is to provide military advice to the President and the 
Secretary of Defense. In that capacity, he will support the Services 
and the Department as they evaluate benefit programs. The Service 
Chiefs have a direct function within their respective Departments in 
the delivery of health care services in addition to offering 
appropriate advice as members of the Joint Chiefs of Staff.

                          MENTAL HEALTH ISSUES

    Question. The final report of the DOD Task Force on Mental Health 
issued in June 2007 found evidence that the stigma associated with 
mental illness represents a ``critical failure'' in the military, 
preventing individuals from seeking needed care. The report states, 
``Every military leader bears responsibility for addressing stigma; 
leaders who fail to do so reduce the effectiveness of the 
servicemembers they lead.''
    If confirmed, what actions would you take to ensure addressing the 
stigma associated with mental illness in the military?
    Answer. The stigma associated with mental health illness is an 
issue in both the civilian community and the military. If confirmed, I 
intend to provide strong leadership to ensure that we overcome this 
impediment and expect leaders at every level to follow suit.
    We have already started to address this issue within DOD. The 
Services have implemented multiple initiatives to try to build 
resilience, prevent adverse effects of combat stress and provide 
increased access to mental health services, including initiatives such 
as embedding mental health personnel in our deploying units and 
performing post deployment health assessments and reassessments.
    DOD currently has formed a ``Red Cell'' to look at over 365 
recommendations from the Mental Health Task Force report as well as 
several other reports. We are developing a plan of action to address 
each of these recommendations. This action plan will be reported to 
Congress within the next 60 to 90 days and I would work closely with 
Congress, our military leaders, Veteran's Affairs and other Federal and 
civilian organizations to see that our servicemembers and their 
families psychological health and mental health issues are addressed.
    Question. What is your view of the need for revision to military 
policies on command notification and self-disclosure for purposes of 
security clearances?
    Answer. Secretary Gates recent announcement that the military 
security clearance process will no longer include questions about 
mental health care history is a significant step in, attempting to 
remove the stigma of receiving mental health care among military 
members, particularly in a time of war when combat stress is impacting 
many of our servicemembers.

                     SEXUAL ASSAULT IN THE MILITARY

    Question. In response to a congressional requirement for 
formulation of a comprehensive policy related to sexual assaults in the 
Armed Forces, the Secretary of Defense promulgated guidance aimed at 
more effectively preventing sexual assaults, investigating incidents of 
sexual assault, and responding to the needs of victims of sexual 
assault.
    What role, if any, has the Joint Staff played in monitoring 
progress within the military services and the COCOMs' areas of 
responsibility in order to ensure enforcement of a ``zero tolerance'' 
policy relating to sexual assaults?
    Answer. As a member of the DOD Sexual Assault Advisory Council, the 
Joint Staff works closely with the Joint Task Force Sexual Assault 
Prevention and Response team, the Services, and OSD. This ensures that 
the policy is executable in the joint and multinational operational 
environment.
    The Joint Staff provides a monthly report to the task force on 
Service progress in completing investigations of sexual assaults that 
occur in the U.S. Central Command area of operations. The Joint Staff 
also provides assistance to combatant commanders during the development 
of their internal procedures; serves as a liaison staff to address 
Service policy issues that might impact a commander's ability to 
conduct investigations; and provides support to victims in the joint 
environment.
    Question. What reporting requirements or other forms of oversight 
by service leaders do you think are necessary to ensure that the goals 
of sexual assault prevention and response policies are achieved?
    Answer. Prevention of sexual assault is the responsibility of all 
leaders and every soldier, sailor, airman, and marine. Leaders in 
particular must be apprised of command climate and aware of sexual 
assault or harassment incidents, and remain in the forefront to ensure 
that our policies are understood and enforced.

                        INDEPENDENT LEGAL ADVICE

    Question. During your assignment on the Joint Staff, you may have 
had the opportunity to observe the working relationship between the 
Chairman's legal advisor, the DOD General Counsel, the Judge Advocates 
General of the Services and judge advocates advising commanders in the 
field.
    What is your view about the responsibility of the Chairman's legal 
advisor to provide independent legal advice to you, other members of 
the Joint Chiefs of Staff, and to the Joint Staff?
    Answer. I view the Chairman of the Joint Chiefs of Staff Legal 
Counsel as having responsibility for providing independent legal advice 
to the Chairman in his role as principal military adviser to the 
President, the National Security Council, Homeland Security Council, 
and the Secretary of Defense. In addition, he must advise the Chairman, 
Vice Chairman, and Joint Staff on the full spectrum of legal issues. 
Given the Chairman's role as spokesman for the combatant commanders, 
the Legal Counsel frequently advises and assists combatant commander's 
legal staffs. In all of these roles, I expect the Chairman's legal 
counsel to provide his best independent counsel.
    Question. What is your view of the need for the Judge Advocates 
General of the services to provide independent legal advice to the 
Chiefs of Staff?
    Answer. I similarly believe that the Judge Advocates General should 
provide their best independent counsel with regards to all of their 
roles and responsibilities; to include advising the Chiefs of Staff
    Question. What is your view of the responsibility of judge 
advocates within the Services and joint commands to provide independent 
legal advice to military commanders?
    Answer. As with the Service Judge Advocate Generals, staff judge 
advocates should also provide their best independent legal advice to 
their commanders. With regard to military justice in particular, 
convening authorities must at all times communicate directly with their 
staff judge advocates.

                            WOMEN IN COMBAT

    Question. The issue of the appropriate role of women in the Armed 
Forces is a matter of continuing interest to Congress and the American 
public.
    What is your assessment of the performance of women in the Armed 
Forces, particularly given the combat experiences of our military, 
since the last major review of the assignment policy for women in 1994?
    Answer. Today, more than 333,000 women serve in the U.S. Armed 
Forces around the world and they are performing magnificently and with 
distinction. From crewmembers, technicians and commanders, to pilots 
and military police, women will continue to play a critical role in the 
defense of our Nation as officer and enlisted functional experts in a 
variety of specialties.
    Question. Given the nature of combat in Iraq and Afghanistan and 
the Army's ongoing effort to reorganize to become a more modular, 
flexible, combat force, is the time right to conduct a comprehensive 
review of the policy, regulations, and law pertaining to the assignment 
of women in the Armed Forces?
    Answer. The flexibility exists within current law and policy to 
allow the Services to review their programs based on their 
circumstances. I do not see the need for a comprehensive review at this 
point.
    Question. Does DOD have sufficient flexibility under current law to 
make changes to the assignment policy for women when needed?
    Answer. Current law provides adequate flexibility to make changes 
to DOD assignment policy for women. The law recognizes that DOD and the 
Services will need to constantly assess the role of women and the 
dynamics of the constantly changing battlefield. The law and DOD policy 
also allows the Services to impose additional restrictions based on 
Service unique mission requirements.
    Question. Do you believe any changes in the current policy are 
needed?
    Answer. The current DOD policy recognizes that women are an 
integral part of our Armed Forces and provides the flexibility needed 
to address changes to the operational environment; no policy changes 
are needed at this time.

               COMMISSION ON NATIONAL GUARD AND RESERVES

    Question. The Commission on the National Guard and Reserves issued 
a second interim report to Congress on March 1, 2007, recommending 
among other things that the Chief of the National Guard Bureau should 
not be a member of the Joint Chiefs of Staff, but that the National 
Guard Bureau should be a joint activity and the Commander or Deputy 
Commander of U.S. Northern Command should be a Reserve of National 
Guard officer at all times.
    What is your opinion on the recommendations of the Commission?
    Answer. I'm in complete agreement with the Secretary of Defense's 
memo dated 10 May 2007. The Secretary agreed in whole or part with 20 
of the Commission's recommendations and the proposed alternatives for 
the others.
    Question. What is your view of the appropriate role of senior 
Reserve component officers on the Joint Staff and on the staffs of the 
combatant commanders?
    Answer. Reserve component officers should be embedded not only in 
the upper echelons of the Joint Staff but throughout all of the COCOMs 
to ensure best utilization of the total force.
    If confirmed, I intend to actively consider all possible 
candidates, including Reserve component general/flag officers for 
billets at all COCOMs, as recommended by the Commission.
    Question. What is your view about making the Chief of the National 
Guard Bureau a member of the Joint Chiefs of Staff? What is your 
rationale for this opinion?
    Answer. I fully support pending legislation to elevate the Chief of 
the National Guard Bureau to a four-star position. I agree with the 
Chief of the National Guard Bureau that the Chief of the National Guard 
Bureau does not need to be a member of JCS. The Chief of the Guard 
Bureau should be invited to participate when Guard equities are 
addressed in a similar fashion as the Commandant of the Coast Guard. In 
addition, the Chief, National Guard Bureau, will have full access to me 
and the upper echelons of the Joint Staff.

                     RELIANCE ON RESERVE COMPONENT

    Question. The men and women of the Reserve component have performed 
superbly in meeting the diverse challenges of the global war on 
terrorism. Such a heavy use of the Reserve components, however could 
have potential adverse effects on recruiting, retention, and morale of 
Guard and Reserve personnel.
    What is your assessment of the impact of continuing Guard and 
Reserve deployments on the readiness and attractiveness of service in 
the Guard and Reserve?
    Answer. The men and women of our Active and Reserve Force are 
performing superbly in the global war on terrorism. However, the 
prolonged demand on certain capabilities resident in the Guard and 
Reserve is a serious concern, and we are working hard to deal with this 
issue. Of note, the highest retention percentages in the Reserve 
components come from units that have deployed for Operation Enduring 
Freedom and Operation Iraqi Freedom--clearly, these servicemembers 
understand the importance of their service and are volunteering again 
to continue to serve their country. We must continue to ensure our 
personnel receive strong support from their civilian employers, provide 
support for their families, and we must also continue to closely 
monitor recruiting and retention.
    To decrease demand on the Reserve component, the Department has 
several initiatives underway which help alleviate additional burden on 
the Guard and Reserve including: (1) rebalancing of forces, (2) 
modularization for a better deployment rotation base, (3) new training 
and certification procedures for our Army Guard and Reserves prior to 
mobilization to maximize their utility while minimizing their total 
time away from home, and (4) increases in the Active component.
    The men and women of our Active and Reserve Force are performing 
superbly in the global war on terrorism. However, the prolonged demand 
on certain capabilities resident in the Guard and Reserve is a serious 
concern, and I understand that the Department is working hard to deal 
with this issue. Secretary Gates redefined the mobilization policy when 
he issued the ``Utilization of the Total Force: memorandum on 19 
January 2007. In this memorandum, Secretary Gates identified the 
following:

          1. setting the length of involuntary mobilization at a 
        maximum of 12 months for Reserve component units;
          2. mobilizing ground forces on a unit versus individual 
        basis;
          3. establishing a planning objective with a ratio of 1 year 
        of mobilization followed by 5 years of ``dwell time'';
          4. establishing a new program to compensate, or provide for 
        incentives to members required to mobilize or deploy early or 
        often, or be extended beyond established rotation policy goals;
          5. reviewing hardship waiver programs to ensure they are 
        properly taking into account exceptional circumstance; and
          6. minimizing the use of stop loss as a force management 
        tool.

    Implementing these six areas will provide increased predictability 
for our citizen soldiers, their civilian employers, and their families.
    Readiness within the Reserve components continues to be strong 
within the community-based forces. We will continue to monitor 
recruiting and retention in both our Active component and Reserve 
component forces.
    Question. What missions, if any, do you consider appropriate for 
permanent assignment to the Reserve component?
    Answer. The Reserve components must be able to operate across the 
full spectrum of conflict, and reflect their parent services total 
force capabilities. The Nation has made a tremendous investment in its 
military members. These highly trained individuals who, if they choose 
to leave the Active components of their Services upon completion of 
their obligated commitment, can re-serve America in their specialties 
in the Guard and Reserve, if these components mirror the full 
capabilities of their services.
    However, the members of the Reserve components have developed 
considerable expertise in the defense of the homeland, to include 
maritime security, air sovereignty, and civil support, and are uniquely 
prepared to lead and assist in the command, control, and direction of 
these missions. As such, serious consideration should be given to 
placing Reserve component leaders in command at Northern Command, Army 
North, and all other domestic security missions as is currently being 
done with the command of 1st Air Force.

                   END STRENGTH OF ACTIVE-DUTY FORCES

    Question. In light of the manpower demands of Operations Enduring 
Freedom and Iraqi Freedom, what level of Active-Duty personnel (by 
Service) do you believe is required for current and anticipated 
missions?
    Answer. The overall force level is not completely representative of 
the impact of Operation Enduring Freedom and Operation Iraqi Freedom on 
the forces. However, the key point is the matching of capabilities to 
mission requirements. Capability demands change based upon different 
phases of the operation. Within this context, ground forces are the 
largest aggregate of forces in high demand. The Services, Joint Staff, 
and OSD have looked at this impact and have brought forward their force 
structure recommendations. As such, the Army and Marine Corps have 
planned growth that is consistent with the future demands expected to 
be placed on our ground forces.
    Question. How do you assess the progress made to date by the 
services in finding ways to reduce the numbers of military personnel 
performing support functions that can better be performed by civilian 
employees or contractors?
    Answer. The conversion from military-to-civilian manpower has been 
ongoing for some time. Military-to-civilian personnel targets are the 
result of collaborative reviews and analyses between OSD and the 
Services. From these come Program Budget Decisions that implement the 
conversions. This process has been effective and, as it is 
collaborative with the Services, I believe it is working toward an 
effective balance of personnel helping to accomplish the Department's 
mission.
    Question. What manpower savings can be achieved through reductions 
in overseas presence, application of technology, and changes in roles 
and missions?
    Answer. As we continue to shape our force in response to the 
changing roles and missions around the world, there will continue to be 
adjustments to where we posture our forces. If confirmed, I look 
forward to being a key advisor as the Department continuously evaluates 
the global environment and determines the appropriate placement of our 
forces to assist in carrying out our Nation's global engagement 
strategies. Additionally, I look forward to playing a role in helping 
determine the Service and DOD's priorities for development and 
acquisition of new technologies. Improving capabilities through 
technology is important and can result in manpower savings.

                        RECRUITING AND RETENTION

    Question. The ability of the Armed Forces to recruit highly 
qualified young men and women and to retain experienced, highly 
motivated commissioned and noncommissioned officers is influenced by 
many factors, and is critical to the success of the All-Volunteer 
Force. While retention in all the Services has remained strong, 
recruiting data in 2007 have shown increasing difficulty for the Army, 
Army Reserve, Army National Guard, Navy Reserve, and Air National Guard 
in meeting monthly recruiting goals. The Active-Duty Army in particular 
is facing difficulties, failing to meet its target for May and June.
    What do you consider to be the most important elements of 
successful recruiting?
    Answer. The basic elements of successful recruiting continue to be: 
tapping the reservoir of patriotism by providing the opportunity to 
serve the Nation; offering America's best and brightest the chance to 
serve in a proud and respected profession; possessing a properly 
resourced cadre of highly motivated and trained recruiters; having 
complete access to the recruiting pool; offering a competitive 
compensation and benefits package; and providing the opportunity for 
young men and women to achieve skills, education, and experience.
    Question. What recommendations, if any, do you have to improve 
recruiting for the ground forces?
    Answer. We are very grateful for the tools that Congress has 
provided (such as increased recruiting bonuses and raising the maximum 
enlistment age) because they are proving valuable to our recruiting 
efforts. The dynamic recruiting environment will remain very 
competitive, and the Services continue to explore methods to improve 
recruiting production. We look forward to the continued support from 
Congress to give the Department the flexibility needed to adjust as 
needed to meet this critical mission.
    Question. How can the Department better target and reach the 
``influencers''--the parents, teachers, and coaches who influence our 
young men and women, and their career choices?
    Answer. In order to compete with an improving economy, in an era 
when the main influencers of our youth--parents, teachers, coaches, 
etc.--are less inclined to recommend military Service, it will take the 
entire Department and our Nation's senior leaders working together 
collectively to ensure that the American people understand and 
appreciate the critical importance that our All-Volunteer Force 
provides to our Nation.
    Question. What do you consider to be the most important components 
in the success of all the Services in retaining experienced junior 
officers, petty officers, and noncommissioned officers?
    Answer. Superbly trained, well-equipped, and highly-dedicated 
Americans have always been our Nation's ultimate asymmetric advantage. 
Our ability to recruit these individuals is certainly critical to our 
success, but of equal importance is our ability to retain these 
experienced professionals. Our military has been successful at 
retention because of its tradition of service, strong leadership at all 
levels, and support by the Nation. Therefore, the most important 
components of retaining our professional force are: (1) Believing that 
the Nation values the service and family sacrifice of all 
servicemembers; (2) Strong leadership and mentorship; (3) Personal and 
professional development opportunities; (4) Opportunities to lead and 
grow at every level throughout their careers; and (5) Competitive 
compensation, benefits and incentive packages that reward their Service 
and provide a good quality of life for their families. As with 
recruiting, we are very grateful for the tools provided by Congress as 
they are critical to continued success in the retention of our force.
    Question. In your opinion, what impact is the current recruiting 
environment likely to have on our ability to sustain an All-Volunteer 
Force?
    Answer. The All-Volunteer Force has served this Nation well for 34 
years. It provides a force that is intelligent, motivated, and more 
dedicated and more inclined to stay than the force I saw as a young 
officer. Most importantly, it represents the society that it protects. 
While there have been some isolated challenges in recruiting in the 
recent past, thanks to the dynamic cadre of trained recruiting 
professionals and the tremendous support of Congress, the All-Volunteer 
Force should continue to provide the servicemembers needed to support 
our Nation.

                                  IRAQ

    Question. What is your assessment of the current situation facing 
the United States in Iraq?
    Answer. Approximately 6 months into the execution of Operation 
Fardh al-Qanoon (FAQ), all surge forces have been in theater for 1 
month and are conducting combat operations. Coordinated offensive 
operations in Diyala Province and the Baghdad belts have begun to 
disrupt al Qaeda in Iraq (AQI) and erode terrorist freedom of 
operations.
    Tribal, anti-AQI measures in al Anbar have sustained popular 
rejection of AQI and reduced violence in the province sufficiently to 
begin programs improving essential services and providing jobs. The 
coalition and the Iraqi Government are expanding engagement to exploit 
similar tribal movements in other provinces to reject terrorism and 
promote stability.
    Sufficient time has not yet elapsed to establish the kinds of 
trends the surge seeks to create. General Petraeus will report on his 
assessment of progress in September, and we should allow him that time 
to develop the situation and provide his assessment and 
recommendations.
    However, we do have initial indicators. Encouraging trends thus far 
include overall reductions in civilian casualties, murders, and 
sectarian violence in Baghdad compared to pre-FAQ levels as well as 
significant decreases in suicide and Vehicle Born Improvised Explosive 
Device high profile attacks over the past 3 months.
    Substantial security threats remain. Iraq-wide, the consistent 
reductions in violence in Anbar province are matched by increased 
attacks in Iraq and Diyala. High-profile attacks have decreased since 
the beginning of FAQ, but remain too high. AQI uses high profile 
attacks to damage key infrastructure such as bridges and mosque and to 
cause high numbers of casualties to stoke sustained sectarian violence.
    Despite a small spike in attacks in the wake of the 13 June Samarra 
Golden Mosque bombing, Iraq appears to have avoided the spiraling 
violence it witnessed after the February 2006 Samarra Mosque bombing.
    Iraqi security forces (ISF) are growing in size and capability 
while continuing to conduct operations alongside coalition forces. The 
ISF still face many challenges including their sustainment capabilities 
and manning levels--but they are facing these with our assistance while 
continuing to fight the extremists and terrorist who threaten the 
future of their nation.
    A nascent governmental structure and immature political 
institutions have slowed economic growth and hampered ministerial 
capacity.
    Question. From your perspective, what are the top lessons learned 
from our experience in Iraq?
    Answer. We entered this conflict without a centralized, coherent 
counterinsurgency doctrine. We've fixed that problem, and General 
Petraeus is using that doctrine now. Using the model of ``clear, hold, 
build'', we've learned that the ground commander must have the 
appropriate force levels to be able to hold the ground once it's 
cleared.
    Further, we've learned that, in order to build, commanders must 
engage local leaders and make them part of the solution. In the more 
rural areas, that means the tribal sheikhs. Indigenous forces are 
perceived as more legitimate, which makes them more effective. We're 
seeing evidence of this in the al Anbar province now.
    We've learned that our enemy is incredibly adaptive; therefore, we 
must be as well. From tactics to equipment, we must be able to quickly 
alter our methods to meet a rapidly-changing environment. This not only 
applies to ground units, but to service institutions and our industrial 
base as well.
    We must better understand the environment in which we will operate. 
Iraq is a complex country, ethnically, religiously, and culturally. 
That complexity must be taken into account at all levels. At the 
tactical level, we've learned that the actions, or lack thereof, on the 
part of junior leaders can have a strategic impact.
    Accordingly, we have adjusted our junior and mid-grade officer, 
noncommissioned officer, and individual training programs to ensure 
that the leaders and troops conducting these operations are prepared 
for the environment in which they operate. We have also created more 
realistic training environments for deploying units.
    Finally, I also believe we've learned that this type of conflict 
requires a whole-of-government approach. This fight is not just a DOD 
fight. It takes all the elements of national power--the Departments of 
State, Justice, Homeland Security, and Treasury--to succeed in this 
complex environment.
    Question. What do you consider to be the most significant mistakes 
the United States has made to date in Iraq? Which of these do you 
believe are still having an impact? What do you believe could be done 
now to mitigate such impact?
    Answer. We have not integrated all elements of U.S. national power 
in Iraq. Often, particularly in the early going, our military, 
political, economic, and information powers were not well synchronized. 
This resulted in missed opportunities and created difficulties that we 
are still dealing with today.
    Disbanding the entire Iraqi Army robbed the Government of Iraq 
(GOI) of what might have been a valuable asset for reconstruction and 
provision of services to the Iraqi people. Furthermore, this action 
provided a recruiting pool for extremist groups.
    The manner in which de-Baathification has been pursued has been 
more divisive than helpful and the process demands reform.
    We attempted to transition to stability operations with a force 
that did not have the requisite manpower to do so. Thus, we gave way to 
a rapidly-building insurgency and yielded the initiative to terrorist 
organizations.
    Our plus-up of forces is intended to isolate Baghdad and the belts 
around it, reestablish a dominant security posture with ISF and 
coalition forces, and provide the space for political and economic 
growth to take place.
    We did not tell our story to the Iraqis, regional audiences, or the 
American people. Modifying public affairs and public diplomacy 
institutions to better deliver messages to the Iraqi people should have 
been conducted.
    Question. What do you believe are the most important steps that the 
United States needs to take in Iraq?
    Answer. Redouble our efforts to support the GOI in establishing the 
security, stability, and long-term good governance required to forge 
political agreements that build momentum for larger political 
settlements and eventual reconciliation. Our political strategy to 
achieve a political solution is key and our military efforts must 
provide the supporting effort to achieve the needed political solution.
    Develop effective and self-sufficient ISFs and transitioning 
responsibilities to Iraq's Government as conditions allow. This should 
give its people additional confidence to build and sustain 
institutions.
    Provide security to the people of Iraq which will allow the space 
necessary for the GOI to make necessary political and economic 
progress.
    Convince Syria and Iran to work toward stability in Iraq--and 
change their behaviors that promote instability in Iraq.
    Support, via the International Compact and other economic 
initiatives, near-term job creation programs, a significant expansion 
of micro-credits, along with rehabilitation of viable state owned 
enterprises that can open for business quickly is necessary.
    Help the GOI build upon the impacts of moderates devoted to a 
stable Iraq through engagements with elements of Iraqi society that 
reject extremism and terrorism. Engagement and inclusion of moderate 
elements will build the foundations necessary for eventual nation-wide 
reconciliation.
    We must have the needed authorities to continue coalition 
operations in Iraq beyond 2007. Another United Nations Security Council 
Resolution, with authorities similar to those of 2007, will be 
necessary.
    Question. Do you believe that there is a purely military solution 
in Iraq, or must the solution be primarily a political one?
    Answer. The majority of problems in Iraq require a political 
solution. The most contentious issues are part of an overall settlement 
and not individual issues in isolation. However, military force is 
necessary to create the stability needed to foster dialogue and genuine 
political progress.
    We must be ready to seize upon improving security environments with 
our political and economic teams to take advantage of fleeting windows 
of opportunity.
    However, there are elements in Iraq, specifically AQI and some Shia 
extremists that can, and will, be dealt with by only military force.
    Diplomatic efforts, similar to those made in the political 
spectrum, must be reinvigorated with Iraq's neighbors. Support to 
terrorist efforts in Iraq must be eliminated if success is to be 
achieved in the near-term.
    The bottom line is that the military dimension supports the 
political dimension, which must take the lead in our strategy to 
succeed in Iraq.
    Question. Do you believe that political compromise among Iraqi 
political leaders is a necessary condition for a political solution?
    Answer. Yes. Compromise is key to advancing solutions to the 
political issues facing Iraq. It is important for Iraqi politicians to 
acknowledge and embrace that politics is not zero-sum game and may 
appear only marginally helpful in the short-term, but produce more 
prosperous long-term benefits.
    Political party leaders must be willing to compromise on individual 
aspirations for the benefit of all Iraqis. We must limit the negative 
impact associated with such decisions; ensure that all parties are 
aware of the compromises made by opponents, and enable political 
leaders to reach compromises in ways that maintains dignity.
    Thus, the Government of Iraq must advance toward inclusion by 
passing key legislation on reconciliation, sharing of oil and gas 
revenues, and provincial powers. Further, holding timely provincial 
elections and passing constitutional amendments on the matters agreed 
upon last year would reduce incentives for violence.
    Addressing all of these issues as parts of a larger question, 
rather than trying to tackle each in isolation, will have the best 
chance of success and is likely to yield the most favorable outcomes 
for all concerned.
    Question. Do you believe that quelling the current level of 
violence in Baghdad is a necessary condition for a political solution?
    Answer. Baghdad is the centerpiece of the political solution we 
seek--its percentage of the populace, sectarian mix, and symbolism are 
inescapable for the entire nation and region.
    Baghdad, and the area, or belts, immediately surrounding the 
capital city, is key terrain on the strategic landscape and must be 
controlled to achieve enduring political gains. That said, security is 
achieved in part due to political compromises and accommodations 
competing factions make.
    Proactive work by the U.S. Government to achieve diplomatic and 
political solutions, while efforts to achieve military security 
objectives are ongoing, will likely combine to produce the overall 
effects we desire.
    However, Iraq is a complex country with complex challenges. Some 
problems manifest themselves at the national level while others have 
local underpinnings. We cannot afford to limit our approach to simply 
Baghdad.
    Current coordinated coalition and ISF offensive operations in 
Diyala province aim to quell violence outside of the capital in another 
important area with a diverse population.
    Question. What do you believe will induce Iraqi political leaders 
to make the political compromises necessary for a political solution? 
What leverage does the United States have in this regard?
    Iraqi leaders must embrace non-violent measures to achieve their 
goals. Further, they must be willing to politically compromise for the 
good of all Iraqi citizens.
    The U.S. still has significant leverage to bring key players to 
compromise, including diplomatic initiatives, economic and assistance 
incentives, selective use of military force, and publicity and 
information gathering and sharing.
    Our allies, both in the region and around the world, can also 
provide some needed leverage. The United Nations must also be fully 
engaged in these measures.
    Question. What do you believe are the prospects for Iraqi political 
leaders to make those compromises and, if made, what effect do you 
believe this would have toward ending the sectarian violence and 
defeating the insurgency?
    Answer. Prospects for compromise are marginally better, but linked 
to security conditions. A stable environment is necessary for dialogue, 
negotiations, and compromise.
    The recent return of the Sadrist and Tawafuq blocs to the Iraqi 
parliament reflect a significant compromise of powerful political 
factions and is a positive step toward the Government of Iraq's 
reconciliation efforts through key Parliamentary legislation on sharing 
of oil and gas revenues and provincial powers.
    Passing this legislation will go a long way to reducing and 
defeating sectarian violence and the insurgency.
    Question. What role, if any, did you play in the development of the 
new Iraq strategy announced by the President earlier this year?
    Answer. I was not involved in the development of the new Iraq 
strategy.
    Question. With regard to the recent ``surge strategy,'' what role 
will you have, if confirmed, in proposing or recommending changes to 
the strategy? What role will you have in deciding or recommending when 
U.S. troops can begin to reduce and transition to new missions?
    Answer. As Vice Chairman, my role is to advise the President and 
the Secretary of Defense on the progress of the operation based on my 
interaction with the combatant commander, Admiral Fallon, General 
Petraeus, other members of JCS and our intelligence agencies.
    Question. What do you see as a reasonable estimate of the time it 
will take to demonstrate success in securing Baghdad?
    Answer. We are demonstrating success in Baghdad today. We have made 
significant progress toward breaking the cycle of sectarian violence 
that had been growing last year. Sectarian violence is down below pre-
surge levels. Attacks on civilians and civilian casualties in Baghdad 
are down below pre-surge levels and show a downward trend.
    The numbers of high-profile attacks are down as well. And we are 
rooting out terrorist cells that have entrenched themselves in the 
city.
    There are still challenges with security in a city as large as 
Baghdad and one that has gone through so much. But we are seeing 
success. Is Baghdad completely secure at this time? No, not entirely. 
It has only been 1 month since the last of our additional brigades 
arrived in Iraq.
    We have provided the commanders on the ground additional resources 
and we should provide them the time they need to apply those resources 
to create the stability and security needed for political progress.
    We will have a better idea of how well our new strategy is working 
in September, but it will still take more than a couple of months to 
see the political and economic results our current security efforts are 
designed to support. 8-12 months is probably a much more reasonable 
timeframe.
    Question. If confirmed, how would you craft an ``exit strategy'' 
for U.S. forces in Iraq? What are the necessary pre-conditions; how 
would you phase the redeployment; and what residual forces would be 
needed for what period of time, and for what purposes over the long-
term?
    Answer. I would characterize our strategic approach going forward 
in different terms. ``Exit strategy'' implies withdrawal from Iraq 
entirely. It is more likely that we will forge an enduring strategic 
relationship with Iraq that will see a U.S. presence for some time to 
come, although that presence may well beat lower force levels. In my 
judgment our strategic interests in Iraq and the region will require a 
national commitment for some time to come, although the nature of that 
commitment will certainly evolve.
    We should develop our strategy in conjunction with the other key 
members of the national security team, to include the State Department, 
Treasury Department, the Justice Department, among others, to insure 
that all elements of our national power, diplomatic, economic, and 
informational, are all operating along with the military instrument, 
with a shared understanding of the plan.
    Going forward, we must achieve the right balance between force 
levels, their mission, and the situation on the ground from start to 
finish.
    Question. What is the state of planning for such an ``exit 
strategy?'' If none has begun, will you require that such planning 
begin?
    Answer. If confirmed, I believe that detailed planning for all 
likely contingencies should be undertaken and would recommend the 
effort begin, if it is not already in progress. It is the duty of the 
military to provide the best possible military advice for any 
contingency to the President.
    Question. What role will you play, if any, in an ongoing assessment 
of the capability of ISFs to take on more of the security 
responsibilities?
    Answer. If confirmed, I would continually assess the progress of 
the ISFs, especially regarding the funding and equipping status. We 
must continually work with the combatant commander, Admiral Fallon, to 
ensure he is properly resourced to enable the ISFs to assume more 
responsibility of the security of their country.
    Question. What is your understanding of U.S. policy with respect to 
the arming and support of Sunni militia forces against al Qaeda in al 
Anbar province and elsewhere in Iraq? What would you recommend in this 
regard?
    Answer. While not directly involved in my current assignment, I 
understand coalition forces are not arming Sunni militias; however, we 
are supporting and augmenting local Police Support Units in various 
provinces. Indigenous forces are the key to success in the Iraqi 
counterinsurgency as demonstrated in Anbar, which has witnessed an 80-
percent decrease in enemy attacks since this time last year. We should 
continue to focus our efforts in supporting homegrown police and 
security forces in Iraq.
    Question. What considerations will be factored into a decision 
regarding whether (and if so, what kind and how much) U.S. military 
equipment currently in Iraq should be left behind for use by the Iraqi 
Army?
    Answer. Equipment/material will be screened for redistribution in 
theater. Items of military value will be retrograded IAW applicable 
Military Regulations.
    Equipment will also be screened for sufficient service life/
residual value to ensure retrograde is a fiscally sound course of 
action. If not sufficient, we'll then consider transfer to the Iraqi 
Army.
    Additionally, equipment that has undergone significant upgrade 
since being deployed to theater (e.g. uparmored HMMWVs, medium and 
heavy trucks, etc.) may also be screened for transfer.
    There are some other types of non-military equipment managed by 
contractors (e.g. generators, living trailers, tents, etc). These will 
also be screened for transfer/donation to the ISF per Annex D of MNF-I 
Framework Operation Order.
    Finally, certain non-military equipment/material that is deemed to 
have significant value to help stimulate the Iraqi economy, will also 
be screened for transfer/donation IAW Annex D of MNF-I Framework 
Operation Order.
    Question. In the National Defense Authorization and Appropriation 
Acts for Fiscal Year 2007, Congress prohibited the use of funds to seek 
permanent bases in Iraq or to control the oil resources of Iraq.
    Do you agree that it is not and should not be U.S. policy to seek 
permanent basing of U.S. forces in Iraq or to exercise control over 
Iraq's oil resources?
    Answer. It is not U.S. policy to seek permanent military bases in 
Iraq or to control Iraq's oil resources, which belong to the Iraqi 
people. The United States may, however, discuss a long-term strategic 
relationship with the Iraqi Government, as it does with many 
governments in the region and around the world.
    Question. If you agree, what are your views on the construction of 
any additional facilities inside Iraq for use by our military forces?
    Answer. Any construction we undertake should be for the temporary 
basing of our forces. We should, however, continue to engage the GOI on 
a long-term security relationship. Any basing decisions will be made at 
the request of the GOI.
    Question. Is the United States military capable of sustaining 
present force levels in Iraq and Afghanistan without breaking the 
force?
    Answer. Our current force levels, or ``surge'', were intended to be 
a sustained increase in forces, but not one without an end. As we 
achieve the conditions necessary to adjust force levels, we will work 
with the Commanders of MNF-I and Central Command to redefine missions 
appropriately. We see no extension beyond 15 months for any forces on 
the ground--as General Petraeus announced in Iraq recently.
    I will provide the Secretary of Defense and the President my best 
military advice as our campaign progresses regarding our missions and 
the appropriate force levels necessary to achieve them. The strain on 
the Services, particularly the Army and Marine Corps--our service men 
and women, and their families--has been and will remain one of many 
operational considerations that influence our strategy.
    Question. Are you concerned about the negative impact of the 
perceived occupation of a Muslim nation by the United States and its 
western allies?
    Answer. I am concerned about negative perceptions, especially when 
they are not based on the facts.
                              afghanistan
    Question. What is your assessment of the long-term prospects for 
Afghan military forces to effectively provide a secure environment for 
a democratically elected government to function?
    Answer. Based on the progress we have made to date with the army, 
and are beginning to make with the police, the Afghan national security 
forces should be able to provide a secure environment that will allow 
the government to succeed.
    The Afghan National Army is the first successful national 
institution in Afghanistan in decades and enjoys considerable support 
and respect from the Afghan people.
    With continued effort and support from the U.S. Government and the 
international community, both institutions will be a positive 
contributor to the fledgling Afghan democracy.
    Question. What, if any, types of military assistance would you 
recommend in addition to current efforts?
    Answer. We have not yet met the minimum requirements stated in the 
NATO Combined Joint Statement of Requirements. Continued diplomacy at 
the highest levels will be required to address shortfalls and caveats, 
which would make the troops we have much more effective. The most 
critical shortfall is training Operational Mentor and Liaison Teams for 
the Afghan National Army (ANA).
    Question. What steps do you believe coalition forces and the 
international community need to take in the near-term to improve the 
lives of the Afghan people?
    Answer. Reinforcing the Government of Afghanistan's ability to 
protect and provide for the Afghan people is critical to marginalizing 
the insurgency and creating a secure environment. The international 
community has agreed to assist in the development and strengthening of 
many vital institutions.
    We have a need for trainers to support the ANA and ANP, ministerial 
level mentors to develop Afghan Government capacity, and the ability to 
execute critical infrastructure projects which include roads, power, 
and rural development.
    Question. News reports indicate that there is growing Afghan 
resentment over civilian deaths resulting from U.S. counterterrorism 
operations and U.S. or NATO airstrikes. Are you concerned that these 
reports of civilian deaths are undermining efforts to win the support 
of the Afghan people for the mission in Afghanistan? What steps, if 
any, do you believe ought to be undertaken to address the issue of 
civilian deaths in Afghanistan?
    Question. Should international military forces have an explicit 
counterdrug mission? If so, should its focus be on interdiction, 
capturing drug lords and destroying drug facilities? If not, what is 
the appropriate role for the military?
    Answer. I am deeply concerned that reporting that is not balanced 
may undermine our efforts. As far as the steps to be undertaken, I will 
echo what is already being expressed by the operational commanders 
involved:
    There are three key elements to this issue, which include:

          1. Ensuring clear measures exist to mitigate the risk to 
        civilians;
          2. Coordinated, credible post-incident reports are completed 
        in a timely manner, followed by rapid reporting of conclusions, 
        lessons and investigations when warranted; and
          3. The need for consistent, cohesive public messaging in 
        Kabul, Brussels, and nation capitals of what happened and why.

                                PAKISTAN

    Question. In your view, what military means can and should the 
United States employ to fight terrorists based in Pakistan?
    Answer. At this time, I think Pakistan is doing as much as we can 
reasonably expect in the border regions and elsewhere. On 11 July, 
Pakistan forces stormed Islamabad's Red Mosque to end an 8-day siege in 
which Islamic extremists had barricaded themselves in the Mosque.
    The Taliban reacted to the assault by calling for the renunciation 
of the North Waziristan Peace Agreement. Pakistan is now dealing with 
the fallout of that battle, and has sent additional troops into the 
Tribal Areas as the Taliban have launched a series of bombings which 
have killed nearly 300 people in the days following the assault on the 
Red Mosque.
    Cooperation among the U.S., NATO-ISAF forces, and the Government of 
Pakistan on both sides of the border is critical. For example, the 
Tripartite Commission and the Border Security Subcommittee meetings are 
important to enhancing this cooperation. The U.S. needs to stay engaged 
in these meetings and continue to help bring all sides together in a 
spirit of coalition cooperation and trust.
    We continue to look at ways that U.S. and coalition forces can 
improve interoperability and coordination along the border to reduce 
cross-border incursions by extremist elements.

                                  IRAN

    Question. What options do you believe are available to the United 
States to counter Iran's growing influence in the Middle East region?
    Answer. Iran is one of the most important regional actors with 
regard to Iraq, Afghanistan and the broader Middle East region, and 
therefore must be taken into account as we execute and develop future 
policy.
    I fully support the current diplomatic initiatives with regard to 
Iran, to include U.N. actions (both sanctions and financial measures), 
regional initiatives, and international pressure.
    I fully support DOS Gulf Security Dialogue initiative to reassure 
our regional partners. This includes military aspects such as building 
partnership capacity building, border security, missile defense, and 
proliferation security initiatives.
    Question. Do you believe that a protracted deployment of US. troops 
in Iraq, if the situation on the ground in Iraq does not improve, could 
strengthen Iran's influence in the region?
    Answer. Regardless of the security situation in Iraq, if U.S. and 
coalition are prematurely withdrawn, Iran would have unimpeded access, 
and influence in Iraq. It is difficult to predict what effect this will 
have in the region. Perhaps most troubling is the potential for 
continued displacement of ethnic and religious groups.
    Question. In your view, does Iran pose a near-term threat to the 
United States by way of either its missile program or its suspected 
nuclear weapons programs?
    Answer. While these programs will not threaten the homeland in the 
near term, they are on a path to threaten the United States and we 
should not wait until the threat has matured to address it. Iran's 
posturing can also threaten U.S. interests in the region.
    Question. If you believe either of these programs pose a near-term 
threat, what in your view are the best ways to address such a threat?
    Answer. We should continue to support the current diplomatic 
initiatives with regard to Iran, to include U.N. actions, regional 
initiatives, financial measures, and international pressure.
    We should encourage Iran to fulfill its responsibility with regard 
to international agreements to the Nonproliferation Treaty and the 
additional protocol.
    We should initiate the fielding of defensive measures for the 
homeland, our forward-deployed forces, friends, and allies.
    Question. Other than nuclear or missile programs what are your 
concerns, if any, about Iran?
    Answer. Iranian malicious activities throughout the region through 
the use of proxies to extend Iranian influence into sovereign nations 
by providing weapons, technology, training, and finance to these 
proxies.
    I am concerned Iran's continued destabilizing activities will 
impact stability and potentially impact the regional economy.
    It is important to maintain and strengthen our relationships with 
our regional partners and allies, by continuing to build partner 
capacity, and land and maritime security to counter Iranian influence 
in the region.
    If confirmed, I will continue to work closely and coordinate with 
all applicable U.S. Government departments to ensure our policies 
toward Iran take a regional approach.

                                COLOMBIA

    Question. What changes, if any, would you recommend for the role of 
the U.S. military in Colombia?
    Answer. The most appropriate role for the U.S. military is to 
continue to address systemic deficiencies in the training and 
employment of the Colombian armed forces. Under the leadership of 
President Uribe, Colombia has made important strides towards defeating 
the narcoterrorists.
    The Government of Colombia and the Colombian armed forces have 
primary responsibility for bringing security and the rule-of law to 
their sovereign nation.
    The Colombian security forces and state intelligence services are 
best suited to sift through the complex maze of local allegiances. They 
are also best equipped to leverage the cooperation of local 
communities.
    Question. What is your assessment of the progress achieved by the 
Colombian armed forces in confronting the threat of narcoterrorism?
    Answer. The Colombian armed forces have progressed well over the 
last few years. U.S. training and equipment as well as intelligence 
support and planning advice have contributed significantly to this 
progress.
    The Colombian military's (COLMIL) Plan Patriota offensive now 
called Plan Consolidatiorz the largest in the Nation's history, 
continues to pressure Revolutionary Armed Forces of Colombia (FARC) in 
its base areas. The COLMIL has captured key nodes and dominates 
mobility corridors, denying FARC access to support and population. A 
number of FARC, National Liberation Army (ELN), and United Self-Defense 
Groups of Columbia (AUC) high value targets have been killed or 
captured. Colombian police are now present in all 1,098 municipalities.
    Colombia's 2007 defense budget is 5.8 percent of gross domestic 
product (GDP) as compared to 2006 when it was 5.4 percent of GDP. This 
represents a 12-percent increase in defense expenditures, from $7.11 
billion to $7.96 billion. Since President Uribe took office, the 
Colombian armed forces have recruited over 100,000 new members. 
Finally, over 30,000 members of the illegal armed groups have 
demobilized.
    This is all good cause for validated optimism. The COLMIL has made 
significant progress fighting narcoterrorists, and their rapid 
expansion has enabled the Government of Colombia to reestablish control 
of its territory and restore government presence and services.
    While the COLMIL is more ```forward-leaning'' than ever, their 
mettle will continue to be tested as the illegal armed groups primarily 
FARC resort to new tactics in order to undermine the government's 
democratic consolidation plan.
    Despite COLMIL successes, the permanent presence of security forces 
in areas previously held by the FARC is the only way to guarantee their 
eventual defeat. Only sustained efforts against all illegal armed 
groups will eventually win the peace.

                       U.S. RELATIONS WITH RUSSIA

    Question. U.S. relations with Russia are strained over a variety of 
issues. If confirmed do you believe that there are any opportunities to 
improve relations through military to military programs, or are there 
any other actions that you would recommend be taken?
    Answer. The U.S. and Russian militaries have made progress in the 
area of military cooperation since 2003 when Presidents Bush and Putin 
directed their respective military chiefs to focus on creating the 
capacity to conduct combined military operations for future missions.
    This progress has been steady and tangible and sets a positive tone 
for other constructive security cooperation with Russia.
    This cooperation has been personally directed by the U.S. and 
Russian Presidents through the Presidential Action Checklist and has 
yielded results.
    I believe that military-to-military programs would continue to 
benefit from this level of oversight as the checklist process has 
overcome bureaucratic obstacles that had previously been 
insurmountable.
    While military cooperation positively influences the broader 
bilateral relationship, political and economic considerations will 
continue to play a key role in the emergence of constructive strategic 
relations. As Russia seeks a greater world leadership role, we should 
encourage their constructive participation in both governmental 
initiatives, such as the Proliferation Security Initiative, and non-
governmental initiatives, such as the Clinton Global Initiative. In the 
end, we stand a better chance of addressing some of the core issues 
that breed conflict as partners with Russia.
    Question. In your view, are there any specific programmatic areas, 
such as missile defense, further nuclear reductions, or space programs, 
where cooperation with Russia could be beneficial?
    Answer. It is essential that we continue to encourage the Russian 
Government to cooperate in addressing the emerging threat to both our 
Nations from the proliferation of ballistic missiles and weapons of 
mass destruction. This includes in the arena of missile defense.
    I would also highlight the importance of enhancing our 
counterterrorism cooperation with Russia given the extremist threats 
facing both our societies.
    Nuclear reductions, as agreed to with the Russian Federation in the 
Strategic Offensive Reductions Treaty (Moscow Treaty), should continue 
in a predictable and transparent fashion with our Russian partners, in 
such a way that builds trust and confidence in how we manage our 
respective strategic nuclear infrastructures.
    I would also maintain that space programs offer a potentially 
fruitful and mutually beneficial area for combined work; we will 
continue to seek out joint programs on which we can cooperate, given 
the advanced technological capacities of both our Nations.
    The Global Initiative to Combat Nuclear Terrorism, which seeks to 
build collective and individual capacity to combat the global threat of 
nuclear terrorism, is another example of how we can cooperate. In a 
joint statement issued last month by U.S. Assistant Secretary John C. 
Rood and Russian Deputy Foreign Minister Sergei Kislyak, the 
participants indicated they were pleased by the large increase in 
participation in the Global Initiative at this meeting. Expanded 
participation by the international community will help combat nuclear 
terrorism and strengthen our capacity to prevent the acquisition of 
nuclear materials and know-how by terrorists.

                    STABILITY AND SUPPORT OPERATIONS

    Question. Operations in Iraq and Afghanistan have underscored the 
importance of planning and training for post-conflict stability and 
support operations. Increased emphasis has been placed on stability and 
support operations in DOD planning and guidance in order to achieve the 
goal of full integration across all DOD activities.
    What is your assessment of the Department's current emphasis on 
planning for post-conflict scenarios?
    Answer. Planning for post-conflict scenarios is a very high 
priority for the Department.
    Stability operations are now a core U.S. military mission, with 
priority across the Department comparable to combat operations.
    The Department is explicitly addressing planning for post-conflict 
scenarios as part of an aggressive implementation of DOD Directive 
3000.05, Military Support to Stabilization, Security, Transition, and 
Reconstruction Operations.
    Full implementation will take years, especially as DOD partners 
with civilian departments and agencies to develop new whole-of-
government planning and execution capabilities.
    Question. How can the Joint Staff better implement the new 
directives on post-conflict planning and the conduct of stability and 
support operations?
    Answer. The Joint Staff assists OSD in supervising the 
implementation of the new directive by the Services and COCOMs.
    During the conduct of stability operations, the Joint Staff should 
assist in coordinating such things as logistics, coalition building & 
sustainment, and the provision of forces. The Joint Staff should also 
provide analyses and insights pertaining to the policy, strategy, and 
progress of stability operations.
    The Department can better implement DOD Directive 3000.05 and 
National Security Planning Document (NSPD)-44 by strongly supporting 
the budget requests of our civilian partners, especially the State 
Department and the U.S. Agency for International Development, as they 
develop and provide a civilian expeditionary capability that will be 
able to effectively prepare for, plan, and conduct post-conflict and 
stability and support operations.
    Question. What lessons do you believe the Department has learned 
from the experience of planning and training for post-conflict 
operations in Iraq and Afghanistan?
    Answer. Post-conflict planning and post-conflict training are 
essential.
    The U.S. Government requires a whole-of-government approach in 
order to effectively plan and execute post-conflict operations.
    The U.S. Government has shortfalls in civilian expeditionary 
capability, which is required to assist a post-conflict state in the 
reconstitution of its governance, essential services, economy, rule of 
law, and so on.
    The State Department's Office of the Coordinator for Reconstruction 
and Stabilization is making progress in this area and its work in 
developing a civilian response capability is fully supported by DOD.

                        COUNTER-DRUG OPERATIONS

    Question. In your view, what technologies and tactics need to be 
developed to improve the United States military's counterdrug 
operations and assistance to other countries?
    Answer. Success in counterdrug operations depends on the 
synchronized application of all elements of U.S. national power: 
diplomatic, informational, military and economic.
    The U.S. military must act in conjunction with the Department of 
State, the Coast Guard, the Drug Enforcement Administration, and our 
international partners.
    The goal is to assist willing nations in the source and transit 
zones to build their own internal capacity for combating the production 
and trafficking of illegal drugs.
    The U.S. military should continue to provide support across a broad 
spectrum of counterdrug operations. Specific military assistance 
includes unit training for host nation counterdrug forces, providing 
aviation support, intelligence analysis and providing military 
equipment.
    While there can be some gains by developing new technologies and 
tactics, the U.S. should focus on broadening and expanding its 
international partnerships in combating drug trafficking.

                     REDUCTIONS IN NUCLEAR WEAPONS

    Question. The United States has made a commitment to reduce the 
number of operationally-deployed nuclear warheads.
    Do you believe reductions in the total number of warheads in the 
stockpile are also feasible? If your answer is yes, how should 
capabilities and requirements be evaluated to identify which warheads 
and delivery systems could be retired and dismantled?
    Answer. Yes. I am confident that working with Congress we can 
reduce both the operationally deployed weapons and the total number of 
weapons in our stockpile. In 2001, the President directed that the 
United States reduce its operationally-deployed strategic nuclear 
weapons from about 6,000 to 1,700 to 2,200 weapons by 2012--a two-
thirds reduction.
    We can best achieve the goal of reducing the total number of 
weapons in our stockpile by developing a responsive infrastructure and 
the RRW. Together they will allow us to preserve a credible deterrent 
with the lowest number of weapons necessary for national security.
    If confirmed, I will work closely with OSD, the National Nuclear 
Security Administration (NNSA), the Services, and COCOMs to evaluate 
our nuclear force structure options with a broad view toward the 
integration of non-nuclear and nuclear strike forces, missile defenses, 
and a responsive infrastructure to reduce our reliance on nuclear 
weapons while mitigating the risks associated with drawing down U.S. 
nuclear forces.

                     INTEGRATION OF SPACE PROGRAMS

    Question. Previously, the Under Secretary of the Air Force was 
designated as the Executive Agent for Space, which included being 
Director of the National Reconnaissance Office. This integration of 
white and black space was one of the recommendations of the Space 
Commission.
    What is your view on the need to institute a more integrated 
approach to both sides of the space community?
    Answer. I agree strongly with the need to integrate black and white 
space. We have been working this issue very hard for some years now. 
Members of both communities participate in a number of joint bodies; we 
are developing joint programs, and at senior levels have very tight 
relationships. We have completed a virtual integration of our operation 
centers and now have a common Deputy Commander in place to ensure 
coordinated and synchronized operations. No process is perfect; there 
is always room for improvement. But I believe we have been very 
successful and anticipate that our success and close working 
relationship will continue.

                        SPACE PROGRAM MANAGEMENT

    Question. In many instances the military and intelligence space 
programs have experienced technical, budget, and schedule difficulties. 
In some instances these difficulties can be traced to problems with 
establishing realistic, clear, requirements and then maintaining 
control over the integrity of the requirements once established.
    How in your view can or should the space systems requirements 
process be improved?
    Answer. While I am encouraged by the improvements that have been 
made to the space systems requirements and acquisition processes over 
the last several years, the space systems requirement process could be 
further improved with additional collaboration and coordination between 
the DOD's JROC and the DNI's Intelligence Community Mission 
Requirements Board. This would result in increased vigilance and 
scrutiny of the space requirements process. Additionally, where 
appropriate, adoption of commercial practices could help to reduce the 
requirements approval time.
    Question. In many circumstances space programs take many years from 
conception to launch. The result is that the technology in the 
satellites is significantly out dated by the time the satellites are 
launched and operational, which in turn, can lead to a decision to 
terminate a program early, and look to a newer technology. This vicious 
cycle results in significantly increased costs for space systems as 
sunk costs are never fully amortized.
    How in your view can this cycle be addressed?
    Answer. This cycle can be addressed by reducing the complexity of 
spacecraft and lift vehicles, designing smaller, lighter single-purpose 
satellites rather than complex multi-purpose satellites which must be 
sub-optimized to perform a variety of missions, by adopting commercial 
practices to streamline the design and manufacturing process and by 
pursuing a ``block build'' strategy that allows for infusion of new 
technology as programs progress.

                     OPERATIONALLY RESPONSIVE SPACE

    Question. Do you support the concept of operationally responsive 
small satellites and what do you see as the most promising 
opportunities for small satellites?
    Answer. I support the concept of Operationally Responsive Space 
(ORS). The concept is intended to rapidly deliver space capabilities to 
the Joint Force Commanders. This will enable the warfighter to 
integrate space capabilities when and where needed to produce the 
desired effect. ORS strategy includes rapid exploitation of new or 
innovative space technical and operational capabilities, augmenting 
space capabilities in time of crisis, and reconstituting capabilities 
when required. ORS is presently in the experimentation and 
demonstration phase. During this time we are using small satellites 
called tactical satellites to help inform the ORS concept of 
operations.

                          PROMPT GLOBAL STRIKE

    Question. As the Commander of the U.S. STRATCOM, developing a 
conventional, non-nuclear, prompt global strike capability has been a 
priority for you. If confirmed you would continue to have a role in the 
requirements development process for such a capability.
    What is your vision of the capability that should be developed for 
prompt global strike and the types of targets that would underpin the 
need to develop the capability?
    Answer. I envision an evolutionary strategy designed to yield a 
range of prompt, non-nuclear kinetic alternatives for dealing with 
time-sensitive or fleeting, high-value targets that are beyond the 
reach of other conventional forces due to time and/or distance, where 
the cost of inaction would be high.
    Question. Would you envision multiple different types of systems 
being developed?
    Answer. Potentially, yes. We are currently reviewing a number of 
concepts proposed by the Services to fill this capability gap. Our 
evolutionary strategy will focus on delivering increasing capabilities 
over time.
    Question. How would you ensure that the capability developed is not 
mistaken for a nuclear system?
    Answer. We take the risks of misinterpretation seriously and are 
actively engaged with others to develop transparency and confidence 
building measures, drawing on our years of experience with other multi-
role systems such as the air launched cruise missile or tactical land 
attack missile. As we pursue prompt global strike capabilities, we will 
fully explore delivery system attributes such as basing and other 
unambiguous signatures to further reduce these risks.
    Question. Does the administration's decision not to extend the 
START have any impact on development of a prompt global strike 
capability?
    Answer. It will provide greater flexibility to pursue prompt global 
strike solutions, while simultaneously seeking to preserve appropriate 
confidence building measures. In the end, we seek new systems that 
contribute to national security and reduce our reliance upon nuclear 
weapons.

                      RELIABLE REPLACEMENT WARHEAD

    Question. The proposal for a RRW included in the fiscal year 2008 
budget is for authority for an early phase in the nuclear weapons 
development. Three of the relevant congressional committees have 
recommended that the RRW proceed with phase 2A development only, and 
the fourth committee recommended no funding for the RRW. Work in phase 
2A would, if eventually approved and funded, begin to provide some 
understanding as to whether RRW could meet the programmatic goals 
established for it.
    One of the goals is that it would be deployed without nuclear 
weapons testing. Do you support this goal?
    Answer. Yes. The RRW is specifically designed to provide greater 
reliability and design margins than those currently in our stockpile. 
RRW will allow the United States to manage the risks of the 21st 
century while reducing the likelihood of returning to nuclear testing 
to certify reliability. If this goal cannot be met we should reassess 
proceeding with RRW.
    Question. One of the goals is that it would enable additional 
reductions to the overall stockpile. Do you support this goal?
    Answer. Yes. The introduction of RRW will allow us to retire 
weapons that are currently being retained in our stockpile to provide 
Reserve capability in the event of a technical failure in the 
operationally-deployed force. A challenge we face today is that our 
Cold War legacy weapons move farther away from their original design 
specifications with each successive service life extension.
    RRW will reduce the need for continued updates to these legacy 
systems and will allow us to retire increasing numbers of them from our 
stockpile.
    RRW is critical to sustaining long-term confidence in our nuclear 
deterrent capability while sizing our stockpile to meet the challenges 
of the 21st century security environment. If these goals cannot be met 
we should reassess proceeding with RRW.
    Question. One of the goals is that it would increase security and 
safety of nuclear warheads. Do you support this goal?
    Answer. Yes. RRW will make U.S. nuclear weapons safer and more 
secure against unauthorized use given the security threats we face 
today and will face in the future. RRW will incorporate state-of-the-
art security features that cannot be retro-fitted to older weapons. 
Additionally, RRW designs will provide more reliable performance 
margins than those currently in the stockpile, will help retire 
hazardous materials found in legacy weapons, and will be less sensitive 
to incremental aging effects and manufacturing variances. If this goal 
cannot be met we should reassess proceeding with RRW.

                   CURRENT NUCLEAR WEAPONS STOCKPILE

    Question. As Commander of U.S. STRATCOM you were involved with the 
annual surveillance process for the nuclear weapons stockpile.
    In your view is the current stockpile safe, secure, and reliable?
    Answer. Yes. Our stockpile stewardship program ensures the current 
stockpile is safe, secure and reliable. However, as the Cold War era 
stockpile ages, our ability to certify the stockpile in a non-testing 
environment will be increasingly challenged.
    The RRW program will allow us to meet the threats of the 21st 
century with a stockpile that is increasingly safe, secure, and 
reliable while reducing the likelihood of a return to nuclear testing.
    Question. As Commander of U.S. STRATCOM, you worked closely with 
the NNSA and its stockpile stewardship program.
    In your view is the stockpile stewardship program providing the 
tools to ensure the safety, reliability, and security of the nuclear 
weapons stockpile now and over the long-term?
    Answer. Yes. The stockpile stewardship program has been 
instrumental to our ability to ensure a safe, secure, and reliable 
stockpile while observing our moratorium on nuclear testing.
    In the longer-term, it is critical that our infrastructure, 
including the national laboratories, maintain the critical nuclear 
skills needed to meet the Nation's strategic requirements.
    RRW will allow us to preserve our strategic nuclear capability with 
a safe, secure, and reliable stockpile while furthering the goals of 
the stockpile stewardship program.
    Question. In your view is the stockpile stewardship program capable 
of supporting design, engineering, development, manufacture, and 
deployment of an RRW?
    Answer. Yes. The NNSA oversees the stockpile stewardship program 
and ensures the safety, security, and reliability of our existing 
stockpile.
    All aspects of the nuclear enterprise--the design teams at our 
national laboratories, the manufacturing production facilities, and 
other key parts of the Departments of Energy and Defense--will work 
together to support the design, engineering, development, manufacture, 
and deployment of RRW.

            UNITED NATIONS CONVENTION ON THE LAW OF THE SEA

    Question. In May of this year, President Bush issued a statement 
urging the Senate to act favorably on U.S. accession to the Law of the 
Sea Convention.
    Do you support U.S. accession to the United Nations Convention on 
the Law of the Sea?
    Answer. Yes. I support accession to the Law of the Sea Convention. 
The Convention protects and advances the national security, economic, 
and environmental interests of the United States.
    Question. How would you answer the critics of the Convention who 
assert that accession is not in the national security interests of the 
United States?
    Answer. As the world's preeminent maritime power, leader in the war 
on terrorism, and the Nation with the largest exclusive economic zone, 
the United States should accede to the Law of the Sea Convention.
    The Convention codifies navigation and overflight rights and high 
seas freedoms that are essential for the global mobility of our Armed 
Forces. It supports our maritime maneuverability and mobility on, over, 
and under the world's oceans.
    The Convention furthers our National Security Strategy and enhances 
our position as a global leader in maritime affairs.

                         TREATMENT OF DETAINEES

    Question. The Constitution, laws, and treaty obligations of the 
United States prohibit the torture or cruel, inhuman or degrading 
treatment or punishment of persons held in U.S. custody.
    What steps, if any, do you believe the Joint Staff should take to 
ensure the humane treatment of detainees in DOD custody and to ensure 
that such detainees are not subjected to torture or cruel, inhuman or 
degrading treatment?
    Answer. DOD has policies in place to require compliance with U.S. 
law concerning humane treatment of detainees in DOD custody. In a July 
7, 2006 memorandum, the Deputy Secretary of Defense required all 
components of the DOD to treat detainees in accordance with Common 
Article 3 of the Geneva Conventions. The 2006 DOD Directive (2310.01E) 
governing the Department's Detainee Program requires that all persons 
subject to the Directive to apply, at a minimum, the standards of 
Common Article 3 to detainees in the custody of DOD. The Detainee 
Treatment Act of 2005 also prohibits the use of any interrogation 
technique not listed in the Army Field Manual on Intelligence 
Interrogation with any person in the custody of DOD. That manual has 
been revised, it is public, and it binds the operations of DOD.
    With regards to detainee treatment, we acknowledge mistakes have 
occurred in the past and we have learned valuable lessons in the U.S. 
military. We have worked hard to ensure commanders demand the humane 
treatment of all detainees at all locations.
    United States military personnel engaged in detention operations 
are required to comply with U.S. domestic law, the Law of War, and our 
international treaty obligations including the Prohibition on Torture 
and Cruel, Inhuman, or Degrading Treatment, and Common Article 3 of the 
Geneva Conventions.

                       BALLISTIC MISSILE DEFENSE

    Question. Section 234 of the Ronald W. Reagan NDAA for Fiscal Year 
2005 requires operationally realistic testing of each block of the 
Ballistic Missile Defense System (BMDS).
    Do you believe that in order to perform its intended function 
successfully the BMDS, including each of its elements, needs to be 
operationally effective?
    Answer. Yes.
    Question. Do you believe that the United States should deploy 
missile defense systems without regard to whether they are 
operationally effective?
    Answer. I believe there are two attributes that should be 
considered in the operational deployment of BMDS; will it be 
operationally effective, and/or will it affect the adversary's 
behavior? I believe the decision to deploy BMDS is operationally sound.
    Question. Do you believe that operationally realistic testing is 
necessary to demonstrate and determine the operational capabilities and 
limits of the BMDS, and to improve its operational capability?
    Answer. Yes.
    Question. If confirmed, what steps, if any, would you take to 
ensure that the BMDS, and each of its elements, undergoes operationally 
realistic testing?
    Answer. If confirmed, I will work with OSD, the Missile Defense 
Agency, the military Services, and the COCOMs to ensure operationally 
realistic testing is accomplished.
    We will conduct each test so that it continues to build on the 
knowledge gained from previous efforts and adds challenging objectives, 
with the goal of testing the system under increasingly realistic 
circumstances to meet the needs of the warfighter.
    Question. The military is supposed to play an important role in 
helping to determine requirements for our military capabilities, and to 
help determine the capabilities that will meet the needs of the 
combatant commanders for their operational plans.
    What do you believe should be the role of the military (as the 
warfighter) in helping to determine the requirements and force 
structure needs for our ballistic missile defense forces, including 
such elements as the Joint Chiefs of Staff, the COCOMs, the Joint Force 
Component Command for Integrated Missile Defense, and the military 
departments?
    Answer. The military should have, and has, a central role in 
helping to determine the requirements and force structure needs of our 
ballistic missile defense forces. The Joint Chiefs of Staff provide 
military advice and oversight of requirements and force structure. The 
COCOMs integrate ballistic missile defense capabilities into 
operational plans and help formulate requirements.
    The Joint Force Component Command for Integrated Missile Defense, 
as a component for U.S. STRATCOM, conducts planning, integration, 
coordination, and global synchronization in support of the geographic 
COCOMs. The military Services and the Missile Defense Agency provide 
resources, support, and leadership to all elements of the ballistic 
missile defense system.
    Question. If confirmed, what steps would you take to help ensure 
that U.S. missile defense forces and capabilities meet the needs and 
operational plans of the combatant commanders?
    Answer. If confirmed, I will work with OSD, the Missile Defense 
Agency, and United States STRATCOM as they continue to collaborate with 
the military Services and COCOMs to ensure the needs of the warfighter 
are met, to include training, testing, wargaming, and conducting 
realistic exercises and simulations, to improve the capability and 
reliability of the missile defense system.
    Question. Section 223 of the John Warner NDAA for Fiscal Year 2007 
establishes that ``it is the policy of the United States that the DOD 
accord a priority within the missile defense program to the 
development, testing, fielding and improvement of effective near-term 
missile defense capabilities, including the ground-based midcourse 
defense system, the Aegis ballistic missile defense system, the Patriot 
PAC-3 system, the Terminal High Altitude Area Defense system, and the 
sensors necessary to support such systems.''
    If confirmed, what steps would you take to ensure that the 
Department complies with this policy requirement in its development and 
acquisition of missile defense capabilities?
    Answer. If confirmed, I will work with the OSD, the Missile Defense 
Agency, the military Services, and the COCOMs to ensure the 
development, testing, acquisition, fielding, and improvement of 
effective near-term missile defense capabilities to meet the threats 
that we face today and will continue to face in the future.

                             FUTURE OF NATO

    Question. Over the past several years, NATO has experienced great 
changes. NATO has enlarged with the addition of seven new members from 
Eastern Europe and the Baltics, and has taken on an ambitious 
stabilization mission in Afghanistan, as well as a training mission in 
Iraq.
    In your view, what are the greatest opportunities and challenges 
that you foresee for NATO over the next 5 years?
    Answer. NATO has proven its relevance by its ability to transform 
from its Cold War posture to meet the out-of-area challenges of the 
21st century. But transformation is not an end-state--rather, it is a 
steady state. NATO's greatest opportunities--and challenges--lay in its 
ability to continue to transform in the coming years.
    Most critically, NATO must develop its role in the Comprehensive 
Approach, the whole-of-international community approach that will 
ultimately deliver the results needed in Afghanistan.
    NATO's military forces cannot alone provide the long-term solution, 
but must play a role together with other actors in the international 
community, such as the European Union, the United Nations, and other 
appropriate Intergovernmental Organizations (IGO) and Nongovernmental 
Organizations (NGOs).
    In the area of military capabilities, NATO and Allied nations must 
continue to focus on expeditionary capacity. Gaps in critical modem 
capabilities, such as strategic airlift, air-to-air refueling, 
helicopter support, and theater ballistic missile defense will need to 
be addressed as well.
    Enlargement of NATO and expanding Alliance relationships with 
partner nations of all types will also present NATO with challenges and 
opportunities. Shaping how NATO engages with partners, from the 
Mediterranean Dialogue to global partnership initiatives, will in turn 
set the stage for future Alliance initiatives critical to allied 
security.
    These opportunities will not come cheaply--which is perhaps one of 
the greatest challenges facing the Alliance. Most allies spend 
incredibly little on defense, especially considering the large 
political commitments they have made. Transforming national militaries 
while also contributing them to ongoing Alliance operations far from 
home is an expensive prospect, but one that is absolutely critical to 
the future success of NATO.
    Question. Do you envision further enlargement of NATO within the 
next 5 years?
    Answer. That is a political question that will have to be answered 
by each of the 26 NATO Allies.
    For the United States, that question will be decided by the 
President and the Congress.
    At the 2006 NATO Summit in Riga, Allies stated that at the 2008 
NATO Summit they will be prepared to extend invitations to those 
aspirants who meet NATO's performance-based standards and are able to 
contribute to Euro-Atlantic security and stability.
    Question. What progress are the NATO member nations, particularly 
the new member nations, making with respect to transforming their 
militaries, acquiring advanced capabilities, and enhancing their 
interoperability with the U.S. and other NATO member nations?
    Answer. Most allies (due to limited resources made available to 
defense ministries) are forced to make critical choices between 
spending money on transforming their militaries or on contributing to 
Alliance operations within existing capabilities.
    Many allies, however, have been able to strike a delicate balance 
between these two choices, but with reduced effectiveness. The cost is 
that national transformational processes are delayed, or have key 
elements canceled, while contributions to operations are smaller, or 
less capable, than needed.
    The bottom line is that all but a very few allies meet the agreed-
upon 2 percent of GDP allocated for defense spending--if this target 
was met, across the board, almost all transformational and operation 
requirements could be met.
    Question. What steps could NATO take, in your view, to reduce 
tensions with Russia?
    Answer. Progress has been made within the context of the NATO-
Russia Council (NRC); however, I believe that this body can play a 
dominant role in mitigating the threat of a renewed confrontation 
between NATO and Russia. Its full potential has yet to be realized.
    The NRC could play an integral role in addressing key strategic 
issues to include:

        <bullet> NATO and Russian perceptions of the ballistic missile 
        threat from the Middle East;
        <bullet> Better orchestrated cooperation in regional 
        stabilization and reconstruction efforts (e.g., in Iraq and 
        Afghanistan);
        <bullet> Managing Russia's reaction to possible NATO 
        enlargement, as well as Russian suspicions about U.S. and NATO 
        activities in Europe and Central Asia; and
        <bullet> Determining how to best facilitate Russia's fullment 
        of its ``Istanbul Commitments'' in withdrawing military forces 
        from Moldova and Georgia.

    Long-term goals would be to:

          (1) Improve NATO-Russia politico-military cooperation, both 
        in Europe and globally, including cooperation in missile 
        defense;

          <bullet> Military-to-military engagement between Russia and 
        NATO, while still progressing with interest at the military 
        level, is considerably hindered by Russian political 
        constraints. The Partnership for Peace Status of Forces 
        Agreement (SOFA) that Russia signed in April 2005 was recently 
        ratified by the Duma. This SOFA could open up several new areas 
        of practical cooperation.

          (2) To help manage allies' concerns about a resurgent and 
        assertive Russian Federation and remind them of the importance 
        of united push back against Russian behavior when needed; and
          (3) To influence positively Russian public attitudes toward 
        NATO, promote democratic and defense reforms within Russia, and 
        encourage ``normal'' relations between Russia and its neighbors 
        in Europe and the Former Soviet Union.

                       SPECIAL OPERATIONS COMMAND

    Question. The Special Operations Command (SOCOM) relies on support 
from the Services for their ``service common'' equipment, which they 
modify using their Major Force Program-11 budget. Often, however, 
SOCOM's acquisition needs are not always adequately prioritized by 
acquisition boards and by the Services.
    What is your view on the appropriate relationship between SOCOM and 
the Services and SOCOM and the acquisition boards?
    Answer. The current relationship and alignment of SOCOM is 
appropriate, and I believe fosters their ability to ensure their most 
pressing needs are met. The Services work hard to ensure they 
understand SOCOM needs and to provide the ``service-common'' equipment. 
SOCOM has their own acquisition boards and processes for SOCOM-unique 
equipment and that works well. In addition, they have a seat at the 
appropriate AT&L acquisition forums when they have specific issues or 
equities and that appears to be working well. At this time, I am not 
aware of any specific SOCOM requirements which have been hindered by 
the current relationships and processes.
    Question. What, if anything, can and should be done to ensure that 
SOCOM's acquisition needs are better met than they are to date?
    Answer. I believe SOCOM is well postured to advocate and procure 
systems to fill their needs. They are actively engaged with the JROC, 
and, when needed, the JROC facilitates SOCOM issues and needs through 
various processes such as the combatant commander Integrated Priority 
Lists and Capability Gap Assessments. In addition, the Vice Chairman 
co-chairs Defense Acquisition Boards and can help facilitate and 
advocate on their behalf

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Vice Chairman of the Joint 
Chiefs of Staff?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Mark Pryor

                            MILITARY IN IRAQ

    1. Senator Pryor. General Cartwright, the debate over the global 
war on terror has led a few current military leaders to agree that 
there is no military solution for the war in Iraq. Do you agree with 
this statement?
    General Cartwright. The solution to the war in Iraq is part 
military, part political.

    2. Senator Pryor. General Cartwright, what recommendation would you 
make to the President and Secretary of Defense if General Patraeus' 
September report indicates no change in the status of combat operations 
in Iraq?
    General Cartwright. The Joint Staff is planning for all potential 
contingencies. This planning is ongoing and will be completed after the 
report comes out. Until then, it would be inappropriate to provide 
conjecture as to how I might advise.

                            REFUGEES IN IRAQ

    3. Senator Pryor. General Cartwright, since 2003 approximately 2 
million Iraqis have fled the country and 900,000 have been internally 
displaced. With another 90,000 Iraqis fleeing every month, what 
responsibility does the U.S. military have to ensure a secure 
reintegration of refugees returning to Iraq following a troop 
withdrawal?
    General Cartwright. The United States has a strategic interest in 
mitigating the humanitarian suffering and potentially region-wide 
destabilizing impact of large numbers of Iraqi refugees and internally 
displaced persons. Unfortunately, it is beyond our means to resettle 
all who have moved away from their homes. Nor would it be easy to 
discover the motivation for many of these relocations. I think it is 
fair to say that some people move for reasons unrelated to security, 
even in Iraq. To make matters more difficult, we do not really have a 
good estimate of the number of emigres or Internally Displaced Persons 
(IDPs). There are estimates that vary widely. So, the magnitude of the 
problem is an unknown. Although we have anecdotal evidence that many 
have returned to their homes, particularly in places like al Anbar, we 
do not have firm numbers. Based on this experience, I would say the 
best thing we can do for the displaced population is to defeat the 
terrorists and rogue militias that drove them away in the first place.

    4. Senator Pryor. General Cartwright, how can we ever have a stable 
Iraq with this much flux across the border?
    General Cartwright. Iraq's borders are a problem. But, that is not 
unusual in this part of the world. Arab peoples do not look at borders 
the same as Americans. There is the Bedouin tradition of free movement 
across boundaries. In fact, some tribes straddle borders, so we have 
families routinely crossing back and forth. Beyond this, some Iraqis 
fled in search of better security or opportunities. The President's New 
Way Forward is designed to address these reasons for emigration, by 
improving security conditions in Iraq and rebuilding the economy as 
best we can so that Iraqis no longer need to leave to have a safe and 
prosperous life. Naturally, we focus most of our efforts on those 
trying to enter Iraq for bad reasons: foreign fighters, weapons 
smugglers, and other insurgent facilitators. To that end, we are making 
progress in the development of the Iraqi Government's Department of 
Border Enforcement, and we are working with neighboring countries to 
increase the security of Iraq's borders. Syria and Iraq co-hosted a 
border security conference in Syria on 8-9 August 2007, attended by 
Iraq's neighboring states along with observers from the United Nations 
``Permanent Five'' (U.S., U.K., Russia, China, and France), the United 
Nations, the European Union, and the Arab League. Participants agreed 
to continue cooperation on border security issues, to increased 
intelligence sharing, and to convene a meeting of technical experts 
from participating parties. We continue to encourage Iraq's neighbors 
to play a constructive role in securing Iraq's borders.

    5. Senator Pryor. General Cartwright, this committee recently 
approved the nomination of LTG Douglas Lute, USA, to the position of 
Assistant to the President and Deputy National Security Advisor for 
Iraq and Afghanistan. While the Chairman and Vice Chairman of the 
Joints Chiefs of Staff also act as advisors to the President, what 
relationship do you foresee having with General Lute and how does he 
fit into the military chain of command?
    General Cartwright. I foresee a collaborative, supportive working 
relationship with General Lute. Based on his tenure as the former Joint 
Staff Director for Operations--and as you well know from his 
confirmation hearing--he is clearly a very capable, qualified officer; 
we look forward to working closely with him. In response to your second 
question, General Lute is an advisor to the President and is not in the 
military chain of command.

                            NAVY OPERATIONS

    6. Senator Pryor. General Cartwright, do you believe the Navy's 
current Helicopter Master Plan, dated 1998, should be updated to 
address the realities of the global war on terror?
    General Cartwright. The Navy's 2002 Helicopter concept of 
operations (CONOPs) combines the acquisition efficiencies of the 1998 
Helicopter Master Plan, which reduces the number of helicopter types 
operated by the Navy from seven to two, with operational efficiencies 
achieved through the reorganization of squadrons to align them with the 
broadened warfighting requirements of Navy Carrier Strike Groups and 
Expeditionary Forces. The 2002 Helicopter CONOPs was updated this year 
with a 2007 Navy Helicopter Force Analysis Study, which re-examined 
helicopter support for Sea Power 21 concepts including the Littoral 
Combat Ship and global war on terrorism missions. This analysis study 
is currently under the Office of the Chief of Naval Operations review 
and will be incorporated in the next Helicopter Master Plan.

    7. Senator Pryor. General Cartwright, how can the Navy operate with 
pre-September 11 master plan in a post-September 11 operational 
environment?
    General Cartwright. The Navy and Marine Corps have changed their 
operating philosophy to provide better defense in a post-September 11 
operational environment. The Navy published two versions of the Naval 
Operations Concept (NOC), both of which describe how the Navy/Marine 
Corps team will contribute to the defense of our Nation. The first 
edition of this document was signed in 2002 and titled ``Naval 
Operating Concept for Joint Operations.'' The current version is the 
NOC 2006, and it refines and expands upon the 2002 version to deal with 
the dynamic post-September 11 security environment.
    The NOC is principally guided by national strategy as articulated 
in the National Security Strategy, the National Defense Strategy, and 
the National Strategy for Maritime Security. Specifically, this concept 
calls for more widely distributed forces to provide increased forward 
presence, security cooperation with an expanding set of international 
partners, preemption of nontraditional threats, and global response to 
crises in regions around the world where access might be difficult.
    The NOC espouses an approach for organizing and employing Navy and 
Marine Corps capabilites to meet the strategic challenges of the global 
war on terrorism/long war. It seeks to make best use of the resources 
we have today to counter the existing threats in our current strategic 
environment. In short, the NOC is about how we are going to use what we 
have today differently to best fight and win the War on Terror, 
positively participate in the global maritime community, yet remain 
prepared to counter or defeat future threats against the United States, 
be they traditional, irregular, disruptive or catastrophic.
    Therefore, contrary to what some may believe, the Navy and Marine 
Corps are not operating with a ``pre-September 11 master plan,'' but 
are using current doctrine like the NOC 2006 to focus on the major 
strategic missions like homeland defense, war on terror/irregular 
warfare, conventional campaigns, deterrence, and shaping and stability 
operations.
                                 ______
                                 
               Questions submitted by Senator John McCain

                          REBASING INITIATIVES

    8. Senator McCain. General Cartwright, there has been a good deal 
of skepticism regarding the Pentagon's planning for the ``perfect 
storm'' caused by the culmination of rebasing initiatives. The 
implementation of the 2005 Base Realignment and Closure (BRAC) round, 
which includes the Integrated Global Presence and Basing Strategy 
initiative to restation 70,000 troops and their families from Europe 
and Korea to the U.S., Joint Basing initiatives, the Army and Marines' 
efforts to grow the force, and the redeployment of troops from Iraq and 
Afghanistan will all require military construction efforts that haven't 
been seen since World War II. Is the Department of Defense (DOD) on 
track in its planning for rebasing?
    General Cartwright. The Department is on track in its planning for 
rebasing, even considering restationing 70,000 troops and their 
families from Europe and Korea to the United States, Joint Basing 
initiatives, the Army's and Marine's efforts to grow the force, and the 
redeployment of troops from Iraq. All BRAC 2005 recommendations are 
currently fully funded and on track to be implemented by the statutory 
deadline of 15 September 2011. Guidance has been published to update 
business plans based on execution realities, and these updates will 
continue through implementation. The Department continues planning for 
basing implications of the force growth in CONUS and any potential 
timing implications for implementation of Integrated Global Presence 
and Basing Strategy decisions.

    9. Senator McCain. General Cartwright, what is the status of these 
efforts, and what do you see as the final outcome from the completion 
of these initiatives in terms of military quality-of-life?
    General Cartwright. The rebasing initiatives are on track. The 
scope of restationing 70,000 troops and their families from Europe and 
Korea, Joint Basing, growing the force, and the redeployment of troops 
from Iraq and Afghanistan is momentous. However, unit deployments and 
soldier, sailor, airman, marine, and family relocations are carefully 
choreographed. Throughout these rebasing initiatives, we have done our 
best to reduce the impact on the force.
    Quality-of-Life is one of the Department's top four priorities, 
which also include win the war on terrorism, accelerate transformation, 
and strengthen joint warfighting. Our priorities are mutually 
supportive in that success in one will support success in others. 
Conversely, delay in one will impede success in others. Bringing people 
home alive and intact is Quality-of-Life Job #1. The best leadership, 
the most innovative tactics, the best equipment, and the best force 
protection are indispensable to this goal. We must show respect for the 
men and women who serve this country in the way we man, train, equip, 
mobilize, deploy, employ, sustain, redeploy, refurbish, and demobilize 
the force. This applies to the Total Force--Active, Guard, Reserve; 
military, civilian, and contractor. We must be mindful of the effects 
making changes to the quality of life on one segment of the force has 
on other segments of the force, as well as the second and third order 
effects of initiatives in this area.
    The Department has included, as an integral component, a number of 
important quality-of-life facilities in our construction projects over 
the next 3 fiscal years. As these projects are accomplished, we see 
significant improvement in the numbers and types of quality facilities, 
which provide places for our soldiers, sailors, airmen, marines, and 
civilians and their families to work, live, and train. Our people 
continue to make great sacrifices in fighting the global war on 
terrorism and our Nation owes them a debt of gratitude. We therefore 
see it as absolutely necessary to ensure we make every effort to match 
their quality of life with the quality of service they provide our 
Nation.

    10. Senator McCain. General Cartwright, is the plan to draw down 
troops in Europe outdated, given the ongoing war in Iraq and other 
world developments?
    General Cartwright. The Joint Staff, Office of the Secretary of 
Defense, U.S. European Command (EUCOM), and Headquarters, U.S. Army, 
are currently reviewing U.S. troop strength in Europe, based on the 
EUCOM Commander's concerns about meeting commitments within his area of 
responsibility. This review is based on concerns about changes that 
have taken place worldwide since the 2004 Report to Congress on 
``Strengthening U.S. Global Defense Posture.''

                          JOINT CARGO AIRCRAFT

    11. Senator McCain. General Cartwright, the Joint Cargo Aircraft 
(JCA) has been a controversial topic over the last few years. Although 
there is support for the program, and the Army and Air Force have 
signed a Memorandum of Agreement establishing a joint requirement, 
there is still no clear path ahead as to who should be the executive 
agent for the program. Similar to last year, this year's House version 
of the Defense Authorization Bill authorizes money for JCA to the Army, 
although less than DOD requested, while the Senate version authorizes 
money for the Air Force. Also last year, the authorizing committees 
gave money for JCA to the Air Force, while the appropriations 
committees moved the money to the Army. As the National Defense 
Authorization and Appropriations Bills for Fiscal Year 2008 are 
pending, where the money's final resting place will be is still in 
question. Currently, the JCA is operating out of a Joint Program 
Office, and is on cost and schedule. If the program is transferred 
fully to the Air Force or fully to the Army, will they be able to 
seamlessly assume full programmatic control and continue to maintain 
cost and schedule?
    General Cartwright. The Joint Cargo Aircraft program fulfills a 
critical capability gap for the Army and the Air Force. The JCA will 
replace aging C-23 and C-26 aircraft and will complement the existing 
joint capabilities in order to fulfill the intratheater airlift 
mission, focused on transporting time-sensitive mission-critical cargo 
and passengers. The Joint Requirements Oversight Council has validated 
this requirement for both Services and believes that the joint CONOPs 
developed by the Army and Air Force will optimize the efficiencies and 
operational effectiveness for the Joint Force Commander.
    The Joint Program Office is working closely with both Services to 
field this capability as soon as possible to meet critical needs of the 
joint warfighter and has developed a comprehensive joint acquisition 
strategy in order to do so. According to the JCA program office, any 
efforts to consolidate funding into one Service would likely increase 
the overall program cost and delay the schedule of the program.

                UNMANNED AERIAL VEHICLE EXECUTIVE AGENCY

    12. Senator McCain. General Cartwright, in response to an Air Force 
request, the Joint Requirements Oversight Council (JROC) recently 
endorsed the Air Force as the Executive Agent for Medium and High 
Altitude Unmanned Aircraft Systems. The Joint Staff further recommended 
the Air Force address equipment standardization and acquisition 
streamlining. In 2005, the JROC determined that an executive agent 
wasn't necessary, and instead created two Centers of Excellence and the 
Joint Unmanned Aerial Systems Materiel Review Board to share 
operational tips and work out best practices. The Army opposes 
designating the Air Force as executive agent, as does the Navy. In your 
view, does establishing an executive agent impact the legal 
responsibilities and authorities of the various Services, specifically 
in relation to acquisition management?
    General Cartwright. I do not believe establishing an executive 
agent would impact the Services' legal responsibilities or authorities. 
That said, the DOD has a formal process, including legal review, to 
assess and determine the applicability of executive agency to any given 
issue. In the specific case of unmanned aerial vehicles, the Secretary 
of Defense is currently reviewing the JROC's recommendations.

    13. Senator McCain. General Cartwright, if confirmed, how will you 
assure the Services manage their acquisition dollars in a way that 
avoids duplication and maximizes current efficiencies, while operating 
within the current acquisition regulations?
    General Cartwright. As Vice Chairman of the Joint Chiefs of Staff, 
I would serve as the co-chair for the Defense Acquisition Board (DAB). 
The DAB is the DOD's senior oversight body for acquisition. The DAB 
process is designed to ensure the Services avoid duplication, maximize 
efficiencies, and comply with acquisition regulations.

    14. Senator McCain. General Cartwright, how will you ensure that 
the needs of the commanders on the ground and in the field are not 
compromised in this area?
    General Cartwright. As Vice Chairman of the Joint Chiefs of Staff, 
I intend to be in close contact with all combatant commanders. Issues 
impacting commanders on the ground and in the field will receive my 
highest priority for resolution.
                                 ______
                                 
    [The nomination reference of Gen. James E. Cartwright, 
USMC, follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 28, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as the Vice Chairman of 
the Joint Chiefs of Staff and appointment to the grade indicated while 
assigned to a position of importance and responsibility under title 10, 
U.S.C., sections 601 and 154:

                             To be General

    Gen. James E. Cartwright, 0000.
                                 ______
                                 
    [The biographical sketch of Gen. James E. Cartwright, USMC, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]

         Biographical Sketch of Gen. James E. Cartwright, USMC

    General Cartwright assumed his duties as the Commander, U.S. 
Strategic Command on 9 July 2004.
    General Cartwright's previous assignment was as the Director for 
Force Structure, Resources, and Assessment (J-8), the Joint Staff. As 
director, he supported the Chairman of the Joint Chiefs of Staff in 
force structure requirements; studies, analyses, and assessments; and 
in the evaluation of military forces, plans, programs, and strategies. 
As Secretary of the Joint Requirements Oversight Council, he 
coordinated Joint Staff actions in support of the Vice Chairman of the 
Joint Chiefs of Staff, and represented the interests of the commanders 
of the combatant commands in requirements generation, acquisition and 
planning, and programming and budgeting.
    General Cartwright was commissioned a second lieutenant in the 
Marine Corps in November 1971. He attended Naval Flight Officer 
training and graduated in April 1973. He attended Naval Aviator 
training and graduated in January 1977. He has operational assignments 
as a NFO in the F-4, and as a pilot in the F-4, OA-4, and F/A-18.
    General Cartwright's operational assignments include: Commanding 
General, First Marine Aircraft Wing (2000-2002), Deputy Commanding 
General Marine Forces Atlantic (1999-2000), Commander Marine Aircraft 
Group 31 (1994-1996), Commander Marine Fighter Attack Squadron 232 
(1992), Fixed Wing Operations Marine Aircraft Group 24 (1991), 
Commander Marine Aviation Logistics Squadron 12 (1989-1990), 
Administration Officer and Officer-In-Charge Deployed Carrier 
Operations VMFAT-101 (1983-1985), Aircraft Maintenance Officer VMFA-235 
(1979-1982), Line Division Officer VMFA-333 U.S.S. Nimitz (1975-1977), 
Embarkation OIC VMFA-251 & 232 (1973-1975).
    General Cartwright's staff assignments include: Director for Force 
Structure, Resources and Assessment, J-8 the Joint Staff (2002-2004), 
Directorate for Force Structure, Resources, and Assessment, J-8 the 
Joint Staff (1996-1999), Deputy Aviation Plans, Policy, and Budgets 
Headquarters, U.S. Marine Corps (1993-1994), Assistant Program Manager 
for Engineering, F/A-18 Naval Air Systems Command (1986-1989).
    General Cartwright was named the Outstanding Carrier Aviator by the 
Association of Naval Aviation in 1983. He graduated with distinction 
from the Air Command and Staff College, Maxwell AFB 1986, and received 
his Master of Arts in National Security and Strategic Studies from the 
Naval War College, Newport, Rhode Island 1991. He was selected for and 
completed a fellowship with Massachusetts Institute of Technology in 
1994.
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gen. James E. 
Cartwright, USMC, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    James E. Cartwright.

    2. Position to which nominated:
    Vice Chairman of the Joint Chiefs of Staff.

    3. Date of nomination:
    June 28, 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 22, 1949; Rockford, IL.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Sandra K. Cartwright (maiden name: Waltz).

    7. Names and ages of children:
    Billee Ann Bennett, 33; and Jayme Roland, 27.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               James E. Cartwright.
    This 6th day of July, 2007.

    [The nomination of Gen. James E. Cartwright, USMC, was 
reported to the Senate by Chairman Levin on August 2, 2007, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on August 3, 2007.]


            TO CONSIDER CERTAIN PENDING MILITARY NOMINATIONS

                              ----------                              


                         TUESDAY, JULY 31, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m. in 
room SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, 
Lieberman, Reed, Bill Nelson, E. Benjamin Nelson, Clinton, 
Pryor, Webb, McCaskill, Warner, Inhofe, Sessions, Collins, 
Chambliss, Graham, Dole, Cornyn, Thune, Martinez, and Corker.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Daniel J. Cox, Jr., professional staff member; Madelyn R. 
Creedon, counsel; Evelyn N. Farkas, professional staff member; 
Creighton Greene, professional staff member; Michael J. Kuiken, 
professional staff member; Gerald J. Leeling, counsel; Peter K. 
Levine, general counsel; Michael J. Noblet, research assistant; 
and William K. Sutey, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Gregory T. Kiley, professional staff member; 
Derek J. Maurer, minority counsel; David M. Morriss, minority 
counsel; Lucian L. Niemeyer, professional staff member; 
Christopher J. Paul, professional staff member; Lynn F. Rusten, 
professional staff member; Sean G. Stackley, professional staff 
member; Kristine L. Svinicki, professional staff member; Diana 
G. Tabler, professional staff member; and Richard F. Walsh, 
minority counsel.
    Staff assistants present: Fletcher L. Cork and Kevin A. 
Cronin.
    Committee members' assistants present: Sharon L. Waxman and 
Jay Maroney, assistants to Senator Kennedy; Frederick M. 
Downey, assistant to Senator Lieberman; Christopher Caple, 
assistant to Senator Bill Nelson; Andrew R. Vanlandingham, 
assistant to Senator Ben Nelson; Jon Davey and Dahlia Reed, 
assistants to Senator Bayh; Andrew Shapiro, assistant to 
Senator Clinton; M. Bradford Foley, assistant to Senator Pryor; 
Gordon I. Peterson, assistant to Senator Webb; Stephen C. 
Hedger, assistant to Senator McCaskill; Sandra Luff, assistant 
to Senator Warner; Anthony J. Lazarski, assistant to Senator 
Inhofe; Lenwood Landrum and Todd Stiefler, assistants to 
Senator Sessions; Mark J. Winter, assistant to Senator Collins; 
Clyde A. Taylor IV, assistant to Senator Chambliss; Andrew 
King, assistant to Senator Graham; Lindsey Neas, assistant to 
Senator Dole; Stuart C. Mallory, assistant to Senator Thune; 
John L, Goetchius and Brian W. Walsh, assistants to Senator 
Martinez; and Bradford T. Sellers, assistant to Senator Corker.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Before I call on Senator Warner, there is 
now a quorum present. I would ask the committee to consider a 
list of 1,875 pending military nominations, they've all been 
before the committee the required length of time, and I would 
ask for a motion to favorably report those nominations.
    Senator Warner. So moved.
    Chairman Levin. Is there a second? Seconded.
    All in favor, say aye? [Chorus of ayes.]
    Opposed, nay? [No response.]
    The motion carries.
    We appreciate that action and we'll call on Senator Warner. 
Thank you for allowing me to do that before your turn.
    [The list of nominations considered and approved by the 
committee follows:]
 Military Nominations Pending with the Senate Armed Services Committee 
 which are Proposed for the Committee's Consideration on July 31, 2007
    1. COL Bradly S. MacNealy, ARNG, to be brigadier general (Reference 
No. 109).
    2. In the Air Force, there are 27 appointments to the grade of 
lieutenant colonel (list begins with Maria M. Alsina) (Reference No. 
368).
    3. Maj. Gen. Daniel J. Darnell, USAF, to be lieutenant general and 
Deputy Chief of Staff, Air Space and Information Operations, Plans and 
Requirements, Headquarters, US Air Force (Reference No. 476).
    4. In the Navy there is one appointment to the grade of rear 
admiral (list begins with Victor G. Guillory) (Reference No. 501-2).
    5. CAPT David J. Mercer, USN, to be rear admiral (lower half) 
(Reference No. 566).
    6. In the Navy Reserve, there are 206 appointments to the grade of 
captain (list begins with Nicholas J. Alaga, Jr.) (Reference No. 567).
    7. In the Army, there are 32 appointments to the grade of 
lieutenant colonel (list begins with James E. Caraway, Jr.) (Reference 
No. 628).
    8. Col. Lyn D. Sherlock, USAF, to be brigadier general (Reference 
No. 646).
    9. Maj. Gen. Donald C. Wurster, USAF, to be lieutenant general and 
Commander, Air Force Special Operations Command (Reference No. 661).
    10. Gen. Duncan J. McNabb, USAF, to be general and Vice Chief of 
Staff, U.S. Air Force (Reference No. 685).
    11. Lt. Gen. Arthur J. Lichte, USAF, to be general and Commander, 
Air Mobility Command (Reference No. 686).
    12. Gen. John D.W. Corley, USAF, to be general and Commander, Air 
Combat Command (Reference No. 687).
    13. Lt. Gen. Frank G. Klotz, USAF, to be lieutenant general and 
Assistant Vice Chief of Staff and Director, Air Staff (Reference No. 
701).
    14. In the Navy, there is one appointment to the grade of 
lieutenant commander (Peter J. Oldmixon) (Reference No. 702).
    15. In the Navy, there are 43 appointments to the grade of captain 
and below (list begins with Dan L. Ammons) (Reference No. 703).
    16. In the Navy, there are 19 appointments to the grade of 
lieutenant commander (list begins with Gilbert Ayan) (Reference No. 
704).
    17. In the Navy, there are 16 appointments to the grade of 
commander (list begins with Simonia R. Blassingame) (Reference No. 
705).
    18. In the Navy, there are 20 appointments to the grade of 
commander (list begins with Jeffrey A. Bayless) (Reference No. 706).
    19. In the Navy, there are 26 appointments to the grade of 
commander (list begins with Chris D. Agar) (Reference No. 707).
    20. In the Navy, there are 27 appointments to the grade of 
commander (list begins with Paul B. Anderson) (Reference No. 708).
    21. In the Navy, there are five appointments to the grade of 
commander (list begins with Christina S. Hagen) (Reference No. 709).
    22. In the Navy, there are 14 appointments to the grade of 
commander (list begins with Christopher J. Arends) (Reference No. 710).
    23. In the Navy, there are 10 appointments to the grade of 
commander (list begins with Sarah A. Dachos) (Reference No. 711).
    24. In the Navy, there are 26 appointments to the grade of 
commander (list begins with Benito E. Baylosis) (Reference No. 712).
    25. In the Navy, there are 18 appointments to the grade of 
commander (list begins with Douglas S. Belvin) (Reference No. 713).
    26. In the Navy, there are nine appointments to the grade of 
commander (list begins with Fitzgerald Britton) (Reference No. 714).
    27. In the Navy, there are 56 appointments to the grade of 
commander (list begins with William L. Abbott) (Reference No. 715).
    28. In the Navy, there are 538 appointments to the grade of 
commander (list begins with Kevin T. Aanestad) (Reference No. 716).
    29. COL Michael J. Trombetta, USAR, to be brigadier general 
(Reference No. 734).
    30. In the Army, there are 23 appointments to the grade of major 
general (list begins with Charles A. Anderson) (Reference No. 735).
    31. RADM David Architzel, USN, to be vice admiral and Principal 
Deputy Assistant Secretary of the Navy for Research, Development, and 
Acquisition (Reference No. 736).
    32. VADM John D. Stufflebeem, USN, to be vice admiral and Director, 
Navy Staff, N09B, Office of the Chief of Naval Operations (Reference 
No. 737).
    33. RADM (Selectee) Adam M. Robinson, Jr., USN, to be vice admiral 
and Chief of the Bureau of Medicine and Surgery and Surgeon General 
(Reference No. 738).
    34. In the Air Force, there is one appointment to be lieutenant 
colonel (Jonathan L. Huggins) (Reference No. 741).
    35. In the Air Force, there is one appointment to be lieutenant 
colonel (Nelson L. Reynolds) (Reference No. 742).
    36. In the Air Force, there is one appointment to be lieutenant 
colonel (Bryan M. Boyles) (Reference No. 743).
    37. In the Air Force, there is one appointment to be major (Michael 
S. Agabegi) (Reference No. 744).
    38. In the Air Force, there is one appointment to be major (Freddie 
M. Goldwire) (Reference No. 745)
    39. In the Air Force, there are four appointments to be lieutenant 
colonel and below (list begins with Val C. Hagans) (Reference No. 746).
    40. In the Air Force, there are three appointments to be lieutenant 
colonel and below (list begins with Kent S. Thompson) (Reference No. 
747).
    41. In the Air Force, there are four appointments to be major (list 
begins with Thomas S. Butler) (Reference No. 748).
    42. In the Army, there is one appointment to be colonel (Stephen T. 
Sauter) (Reference No. 749).
    43. In the Army, there is one appointment to be colonel (Terry D. 
Bonner) (Reference No. 750).
    44. In the Army, there is one appointment to be lieutenant colonel 
(Mark Trawinski) (Reference No. 751).
    45. In the Army, there is one appointment to be major (Francisco C. 
Dominicci) (Reference No. 752).
    46. In the Army, there is one appointment to be major (Joseph E. 
Jones) (Reference No. 753).
    47. In the Army, there is one appointment to be major (Colin S. 
McKenzie) (Reference No. 754).
    48. In the Army, there are two appointments to be major (list 
begins with Lozay Foots) (Reference No. 755).
    49. In the Army, there are two appointments to be major (list 
begins with Louis R. Kubala) (Reference No. 756).
    50. In the Army, there are two appointments to be major (list 
begins with William A. McNaughton) (Reference No. 757).
    51. In the Army, there are three appointments to be lieutenant 
colonel and below (list begins with James E. Cole) (Reference No. 758).
    52. In the Army, there are two appointments to be lieutenant 
colonel (list begins with Daniel L. Duecker) (Reference No. 759).
    53. In the Army, there are 44 appointments to be major (list begins 
with Joseph A. Bernierrodriguez) (Reference No. 760).
    54. In the Navy Reserve, there is one appointment to be captain 
(Bruce S. Lavin) (Reference No. 761).
    55. In the Navy Reserve, there are two appointments to be captain 
(list begins with Christopher R. Davis) (Reference No. 762).
    56. In the Navy Reserve, there are three appointments to be 
commander (list begins with Robert D. Clery) (Reference No. 763).
    57. In the Air Force, there are 24 appointments to be major general 
(list begins with Robert R. Allardice) (Reference No. 769).
    58. In the Army, there are 342 appointments to be major (list 
begins with Mazen Abbas) (Reference No. 770).
    59. In the Navy, there are 56 appointments to be commander (list 
begins with Michael J. Allanson) (Reference No. 771).
    60. In the Navy, there are 36 appointments to be commander (list 
begins with Maria L. Aguayo) (Reference No. 772).
    61. In the Navy, there are 27 appointments to be commander (list 
begins with Antony Berchmanz) (Reference No. 773).
    62. In the Navy, there are 58 appointments to be commander (list 
begins with Eric J. Bach) (Reference No. 774).
    63. In the Navy, there are 116 appointments to be commander (list 
begins with Elizabeth M. Adriano) (Reference No. 775).
    Total: 1,875.

    [Whereupon, at 10:09 a.m., the committee adjourned.]


 NOMINATIONS OF ADM GARY ROUGHEAD, USN, FOR REAPPOINTMENT TO THE GRADE 
 OF ADMIRAL AND TO BE CHIEF OF NAVAL OPERATIONS; GEN WILLIAM E. WARD, 
   USA, FOR APPOINTMENT TO THE GRADE OF GENERAL AND TO BE COMMANDER, 
    UNITED STATES AFRICA COMMAND; GEN. KEVIN P. CHILTON, USAF, FOR 
   REAPPOINTMENT TO THE GRADE OF GENERAL AND TO BE COMMANDER, UNITED 
  STATES STRATEGIC COMMAND; AND LT. GEN. JAMES N. MATTIS, USMC, TO BE 
  GENERAL AND TO BE COMMANDER, UNITED STATES JOINT FORCES COMMAND AND 
              SUPREME ALLIED COMMANDER FOR TRANSFORMATION

                              ----------                              


                      THURSDAY, SEPTEMBER 27, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Bill Nelson, E. 
Benjamin Nelson, Webb, Warner, Inhofe, Collins, Thune, and 
Martinez.
    Other Senators present: Senator Inouye.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Evelyn N. Farkas, professional staff member; Richard 
W. Fieldhouse, professional staff member; Creighton Greene, 
professional staff member; Michael J. Kuiken, professional 
staff member; Arun A. Seraphin, professional staff member; and 
William K. Sutey, professional staff member.
    Minority staff members present: William M. Caniano, 
professional staff member; David G. Collins, research 
assistant; Derek J. Maurer, minority counsel; Lucian L. 
Niemeyer, professional staff member; Lynn F. Rusten, 
professional staff member; Robert M. Soofer, professional staff 
member; Sean G. Stackley, professional staff member; Kristine 
L. Svinicki, professional staff member; and Richard F. Walsh, 
minority counsel.
    Staff assistants present: Jessica L. Kingston, Benjamin L. 
Rubin, and Brian F. Sebold.
    Committee members' assistants present: Jay Maroney, 
assistant to Senator Kennedy; Frederick M. Downey, assistant to 
Senator Lieberman; Andrew R. Vanlandingham, assistant to 
Senator Ben Nelson; M. Bradford Foley, assistant to Senator 
Pryor; Sandra Luff, assistant to Senator Warner; Anthony J. 
Lazarski and Nathan Reese, assistants to Senator Inhofe; Todd 
Stiefler, assistant to Senator Sessions; Stuart C. Mallory and 
Jason Van Beek, assistants to Senator Thune; and Brian W. 
Walsh, assistant to Senator Martinez.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The Senate Armed 
Services Committee will come to order.
    Today, the committee considers the nominations of four 
distinguished senior military officers: Admiral Gary Roughead, 
the nominee to be Chief of Naval Operations (CNO); General 
William Ward, the nominee for Commander, U.S. Africa Command 
(AFRICOM); General Kevin Chilton, the nominee for Commander, 
U.S. Strategic Command (STRATCOM); and General James Mattis, 
the nominee for Commander, U.S. Joint Forces Command (JFCOM) 
and Supreme Allied Commander for Transformation.
    We all know that the long hours and hard work that are put 
in by our senior military officials at the Department of 
Defense (DOD) require commitment and sacrifice, not only from 
our nominees, but also from their families. We greatly 
appreciate the willingness of our nominees to carry their new 
responsibilities that they will be carrying, but we also 
appreciate the support of the families. Without that support, 
these men could not possibly do what they have been asked to do 
throughout their careers and what they are going to be asked to 
do when they're confirmed. At the appropriate time, we will ask 
our nominees to introduce their families.
    Our nominees are an impressive group of officers, one from 
each military service, as it happens, with a combined total of 
more than 140 years in military service. Admiral Roughead has 
served as Commander, U.S. Fleet Forces Command, Commander of 
the Pacific Fleet, and Commandant of the U.S. Naval Academy. 
General Ward has served as Deputy Commander, U.S. European 
Command (EUCOM) and as Deputy Commanding General, U.S. Army 
Europe, and 7th Army Germany. General Chilton has served as 
Commander, Air Force Space Command, and has flown three Space 
Shuttle missions. General Mattis has served as Commanding 
General of the Marine Corps Combat Development Command and 
Commanding General of the 1st Marine Division.
    If confirmed, each of our nominees will be responsible for 
helping the DOD face critical challenges.
    Admiral Roughead would be the 29th CNO. He will face 
difficult tasks of recruiting and retaining a quality force and 
maintaining current readiness to conduct the ongoing war on 
terrorism, while, at the same time, transforming the Navy force 
structure to deal with the threats of the future in the face of 
difficult cost and scheduling problems with the Navy's major 
acquisition programs.
    General Ward would be the first commander of a brand new 
command, U.S. AFRICOM. He will be confronted by challenges of 
transnational terrorism, instability, and the concern of many 
Africans about the U.S. military's intention in Africa. This 
committee will be looking to the new command to greatly improve 
efforts to train members of African militaries for peacekeeping 
missions in Africa.
    General Chilton will be the Commander, U.S. STRATCOM, and 
will face challenges of ensuring the safety and security of our 
nuclear weapons, looking at the further reductions in the 
nuclear stockpile, ensuring that the missile defense system is 
fully tested, reliable, and focused on near-term threats, 
working to improve our abilities to protect vital computer 
networks, support the other combatant commanders, and 
coordinate the various elements of the intelligence community 
to ensure that the military has the most up-to-date and timely 
intelligence.
    General Mattis will be the new Commander of U.S. JFCOM. 
JFCOM supports the development and integration of present and 
future joint, interagency, and multinational capabilities. This 
committee has a longstanding interest in this command's 
mission, responsibilities, authorities, and activities with 
respect to joint doctrine development, training, 
experimentation, and acquisition.
    General Mattis has also been nominated as Supreme Allied 
Commander Transformation, one of the North Atlantic Treaty 
Organization's (NATO) two strategic commanders. General Mattis 
would be only the third to hold this position since Allied 
Command Transformation was established in 2002. In this 
capacity, he'll face the task of carrying out Allied Command 
Transformation's mission of promoting the continuing 
transformation of NATO's forces, capabilities, and doctrine, 
and to enhance the Alliance's effectiveness and 
interoperability.
    I'm going to turn the gavel, now, over to Senator Ben 
Nelson, who has agreed to take over as chair this morning, 
because the fact that the National Defense Authorization Act 
for Fiscal Year 2008 is on the floor, and I should be down on 
the floor of the Senate. I'm very grateful to Senator Nelson 
for accepting the responsibility. I'm sorry that I'm going to 
miss most, if not all, of the testimony of you four gentlemen, 
and the answers to the questions, but my staff is here and will 
be following the hearing very closely.
    Now, I'll ask my old friend and colleague--or my young old 
friend and colleague----[Laughter.]
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you very much, Mr. Chairman.
    We should acquaint our witnesses and families with the fact 
that the Senate is scheduled to start a series of as many as 
five votes around 11 o'clock. consequently, Mr. Chairman, I'm 
going to ask unanimous consent to place in the record a 
statement by Senator McCain, followed by a statement that I 
have prepared. I join you in welcoming the families, and I'll 
forego going into the details of those statements, because I 
think you adequately covered it everything, and because it will 
enable our members to have the maximum amount of time for 
questions before they must depart for the important votes that 
will take place at 11 o'clock.
    Chairman Levin. Those statements will be made part of the 
record.
    Senator Warner. Fine.
    [The prepared statements of Senator McCain and Senator 
Warner follow:]

               Prepared Statement by Senator John McCain

    I want to welcome and congratulate Admiral Roughead, General Ward, 
General Chilton, Lieutenant General Mattis, and their families on your 
nominations. Your nominations come at a critical time in our country's 
history. The United States faces a myriad of strategic, diplomatic, and 
military challenges. If confirmed, your commands will play an integral 
role in ensuring the future security of our Nation, friends and allies. 
Mr. Chairman, I have confidence in these nominees, their leadership and 
experience and am grateful to them for their service.
    Admiral Roughead, congratulations on your nomination as the 29th 
Chief of Naval Operations (CNO). I am a strong proponent of defense 
acquisition reform. In this year's Senate version of the National 
Defense Authorization Act, we have established a three-star military 
deputy to the Service Acquisition Executive which would strengthen the 
performance of the service acquisition executive; improve the oversight 
provided military officers serving in acquisition commands; and, 
strengthen the acquisition career field in the military. I look forward 
to hearing your thoughts about appointing a Principal Military Deputy 
with significant experience in the areas of acquisition and program 
management. I also welcome your thoughts on what role the CNO and any 
member of the Joint Chiefs should play in acquisition program 
management.
    While a great deal of emphasis has been placed on our ground 
forces, the Navy faces significant challenges, including China's rapid 
development of a blue-water navy and developing a comprehensive Indian 
Ocean strategy which includes deterring threats to vital sea lanes of 
communication and maintaining a capacity to facilitate humanitarian 
assistance as the Navy did during the 2004 tsunami disaster. Our 
efforts gain us a great deal of goodwill in the region and should 
continue to build on those relationships. I look forward to hearing 
your thoughts on the future of the Navy and how it will support the 
National Military Strategy and your plans to implement the ``313-ship 
Navy.''
    General Ward, welcome and thank you for accepting this challenging 
and important new assignment. The new Africa Command (AFRICOM) offers a 
variety of opportunity not only for the military but for the 
interagency. This new command will have unprecedented interagency 
participation and cooperation. The establishment of AFRICOM is 
testament to the growing importance of Africa to U.S. national security 
and strategic interests. I hope AFRICOM will be a model example of how 
the military working with other U.S. agencies can foster long-term 
stability on the continent. While the U.S. has provided both military 
training and humanitarian assistance to several African nations, 
AFRICOM has an opportunity to manage all of these efforts and achieve 
maximum results. I believe the most important role we can play in 
Africa is in enhancing nations' governance, law enforcement and 
peacekeeping capacity. AFRICOM's success will rely heavily on close 
interagency cooperation. Your long and exemplary service and varied 
experiences make you well-suited to lead this new command. I look 
forward to hearing your vision for its development and mission.
    General Chilton, as the current Commander of Air Force Space 
Command, you are more than qualified to lead U.S. Strategic Command 
(STRATCOM). The mission of ``strategic forces'' has changed 
significantly over the last 30 years and the threat to our strategic 
forces. Now, we face a formidable threat to our information operations. 
I look forward to hearing from you about what areas you are prepared to 
improve within STRATCOM's diverse portfolio including, global strike, 
space operations; information operations; missile defense; command and 
control; intelligence, surveillance and reconnaissance; and countering 
weapons of mass destruction. I am also very interested in the ongoing 
investigation of the transport of nuclear warheads on a B-52 bomber in 
September. I look forward to hearing the results of that investigation, 
but I would also welcome your ideas about how to prevent such an 
incident from happening again.
    General James Mattis, thank you for your service. You have 
performed admirably as the Commander of the U.S. Marine Corps Forces 
Central Command. The Marines are a small service, but the work the 
Marines have done in al-Anbar, Fallujah, and Kabul is remarkable. You 
have done a formidable job in your current command and I congratulate 
you on your nomination to serve as the Commander of the United States 
Joint Forces Command (JFCOM) and North Atlantic Treaty Organization 
Supreme Allied Commander, Transformation. We will be well-served by 
your vast experience and I appreciate all the work and sacrifice of the 
men and women under your command. You have been on the frontlines of 
the wars we are waging on multiple fronts. Never before have we asked 
so much of our soldiers, sailors, airmen, and marines. In Iraq, 
Afghanistan, and theaters around the world, our troops are 
participating in an unprecedented number of joint operations and their 
efforts appear nearly seamless. Our troops face daunting challenges, 
but they are succeeding and excelling at every task they are given. 
Despite the sacrifices of our brave men and women, Americans will 
continue to face profound and pervasive threats to the liberty and 
freedom that we so richly enjoy. If confirmed as JFCOM Commander, you 
will play a pivotal role in developing our interoperability 
requirements to counter these threats. Now more than ever, JFCOM must 
be agile and responsive to an ever-evolving threat situation. I look 
forward to hearing your priorities for improving our troops' readiness 
and joint warfighting capabilities.
    I thank all of the nominees and their families for being here today 
and for all of their honorable and long service to this Nation. I look 
forward to your testimony.
    Thank you, Mr. Chairman.
                                 ______
                                 
               Prepared Statement by Senator John Warner

    Thank you, Senator Levin. I join you in welcoming Admiral Roughead, 
General Ward, General Chilton, and Lieutenant General Mattis, and their 
family members, and congratulating them on their nominations.
    Admiral Roughead, we are delighted to have you appear before us as 
the President's nominee to be the 29th Chief of Naval Operations (CNO). 
You've earned this nomination and your current assignment as Commander, 
U.S. Fleet Forces Command through a most impressive career of proven 
leadership, including multiple command at-sea tours, and as Commander 
of the U.S. Pacific Fleet. The challenges before the CNO demand such 
experience and more.
    I will be interested in your views on how the new Maritime 
Strategy, which the Navy is preparing to unveil, will influence the 
size and shape and operations of our Navy in support of the National 
Military Strategy. As well, I look for your plans to recapitalize the 
fleet, to what Admiral Mullen has referred to as the ``313-ship Navy,'' 
and similarly, your plans to address the looming critical shortfall in 
strike-fighter aircraft. It will be important to understand how you 
propose to control requirements and control cost in order to achieve 
these most fundamental objectives for the Navy. Again, I commend and 
thank you for your dedicated service to our Nation and look forward to 
your testimony today.
    General Ward, you have been nominated to take on a very exciting 
and challenging assignment. If confirmed, you will be the first 
commander of the newly established Africa Command (AFRICOM). The 
decision to have an independent command for Africa reflects a growing 
recognition that the African continent is as important to U.S. national 
security interests as are Europe, Asia, the Middle East, and South 
America.
    However, AFRICOM will have some unique attributes, as so many of 
the challenges there require an intensive dedication of the non-
military tools of national power. The military also has a role to play 
in helping to strengthen the capabilities of African nations to govern 
their own spaces and to participate in peacekeeping operations. To be 
successful, this command must be characterized by a very high degree of 
cooperation with the Department of State and the country teams in U.S. 
embassies on the continent. I can think of no officer better prepared 
or more qualified to get this command off on a positive footing.
    General Chilton, as the current Commander of Air Force Space 
Command, with extensive space and nuclear force experience, you are 
well qualified to lead U.S. Strategic Command (STRATCOM). During the 
Cold War, U.S. ``strategic forces'' were synonymous with nuclear 
capabilities. Today, however, STRATCOM's mission goes well beyond 
nuclear deterrence, and must take into account new threats to national 
security posed by terrorism, rogue states, and non-state actors.
    STRATCOM is now charged with integrating space operations: 
information operations: missile defense: global command and control: 
intelligence, surveillance and reconnaissance: global strike; combating 
weapons of mass destruction (WMD): as well as the traditional mission 
of strategic deterrence.
    General Chilton, I will be interested to learn where you intend to 
place your emphasis and how you view STRATCOM's role in fighting 
today's threats. I'm sure the committee would also benefit from your 
views on the September 5, 2007 incident regarding the inadvertent 
transport of several nuclear warheads aboard a B-52 bomber, as well as 
the broader question concerning the handling of nuclear weapons across 
our forces. This is a matter of grave concern to this committee and the 
chairman and ranking member have requested a full investigation.
    The committee will also hear from Lieutenant General James Mattis 
who has been nominated to serve as the Commander, United States Joint 
Forces Command and North Atlantic Treaty Organization (NATO) Supreme 
Allied Commander, Transformation.
    General Mattis, your current service as Commander, U.S. Marine 
Corps Forces Central Command, provides you a unique understanding of 
the importance of the missions carried out by JFCOM. In its role as 
force provider, JFCOM assigns nearly all conventional forces based in 
the continental United States, while JFCOM is also charged with the 
development of interoperability requirements which ensure our soldiers, 
sailors, airmen, and marines can combine their capabilities into a 
single successful effort. To fulfill this role, JFCOM must maintain 
close coordination with Active, National Guard, and Reserve elements 
and deep awareness of current unit availability and readiness.
    The committee looks forward to hearing about your plans and 
priorities for strengthening both our readiness and our joint 
warfighting capabilities. The committee is also very interested to hear 
your plans for advancing NATO transformation and interoperability, 
which is so critical to NATO's ability to carry out joint operations 
in-theater and beyond, as in Afghanistan.
    I thank each of our nominees, and their families, for their 
continued service and look forward to their testimony.

    Senator Warner. I think--at the appropriate time, it would 
be nice to have each nominee introduce their families--
extraordinarily turned out--and it's so important, because we 
all recognize that you're here today--recognized by our 
President and about to be confirmed by the Senate; I'm 
confident that each of you will be--only because of the strong 
support that each of you receive through family structure in 
these many years to reach the very, very top of your military 
professions. So, I not only congratulate you, but your 
families, who helped you achieve that goal.
    Chairman Levin. Thank you.
    Before Senator Nelson calls on each of you for your own 
opening statements and to introduce your families, let me just 
ask the standard questions.
    These are questions that are asked by this committee of 
each of our nominees. You can answer together.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    [Witnesses replied in the affirmative.]
    Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation 
process?
    [Witnesses replied in the negative.]
    Will you ensure your staff complies with deadlines 
established for requested communications, including questions 
for the record at hearings?
    [Witnesses replied in the affirmative.]
    Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    [Witnesses replied in the affirmative.]
    Will those witnesses be protected from reprisal for their 
testimony or briefings?
    [Witnesses replied in the affirmative.]
    Do you agree, if confirmed, to appear and testify, upon 
request, before this committee?
    [Witnesses replied in the affirmative.]
    Do you agree to give your personal views, when asked before 
this committee to do so, even if those views differ from the 
administration in power?
    [Witnesses replied in the affirmative.]
    Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when 
requested by a duly constituted committee, or to consult with 
the committee regarding the basis for any good-faith delay or 
denial in providing such documents?
    [Witnesses agreed.]
    We thank you all.
    Senator Nelson, thank you, again.
    Senator Ben Nelson [presiding]. Are there any opening 
statements from any of our members?
    Senator Warner. I forego it, on behalf of Senator McCain 
and myself. I believe we're anxious to proceed to questions.
    Senator Ben Nelson. There being none----
    Senator Inhofe. I would do the same.
    Senator Ben Nelson. Okay.
    Admiral Roughead, we'll begin with you.

 STATEMENT OF ADM GARY ROUGHEAD, USN, FOR REAPPOINTMENT TO THE 
      GRADE OF ADMIRAL AND TO BE CHIEF OF NAVAL OPERATIONS

    Admiral Roughead. Thank you very much, Mr. Chairman.
    Mr. Chairman, Senator Warner, and distinguished members of 
the committee, it's a great honor to appear before this 
committee as the nominee to be our Navy's CNO.
    I'm grateful for the confidence placed in me by President 
Bush, Secretary Gates, Secretary Winter, and Admiral Mike 
Mullen.
    I am most grateful for the support, the understanding, and 
inspiration of my wife, Ellen, who has been with me all these 
years, and our daughter, Elizabeth----
    Senator Ben Nelson. How many years? [Laughter.]
    Admiral Roughead. I'll let her answer that, sir. 
[Laughter.]
    1973 is when we first met. We had a very long courtship--9 
years. She would never say yes. So, that's--for those years. 
But then, we're also joined by our daughter, Elizabeth, who is 
a junior at Middlebury College in Vermont, where she's majoring 
in conservation biology. They truly are the loves of my life.
    The opportunity to serve our Nation and to lead our Navy is 
the highest honor for any naval officer. For the past 4 years, 
I've had the privilege of leading our operational forces in the 
Atlantic and the Pacific, Navy and Joint. I've watched our 
sailors perform magnificently from the high end of combat to 
the most extensive humanitarian and relief operation ever 
undertaken by our military. Every day and in every environment, 
I'm inspired by what they do and who they are. They are bright, 
they are focused, they are tough, and they are competent, yet 
they are compassionate when reaching out to others. They truly 
are the face of our Nation in far-off lands.
    Today, 51 percent of our force is underway, 41 percent are 
deployed. We have 14,650 sailors on the ground in the Middle 
East; 6,500--or just above 6,500--are there on individual 
assignments. We are a ready, agile, and global Navy.
    My priorities have been, and will be, maintaining our 
current readiness, building the Navy of tomorrow, and that 
which underpins all we do--our people--our sailors, our 
civilians, and our very special families whose hallmarks are 
sacrifice and self-reliance.
    Maintaining our current readiness gives us the ability to 
be an effective force anywhere in the world. With building the 
Navy of tomorrow comes the responsibility, the accountability, 
and the obligation to clearly and thoughtfully define how we 
will fight and what we need, not want, to be able to do that. 
We must accurately articulate our requirements, and be 
disciplined in our process, to get us to that new future.
    But all we acquire is of little worth without the people 
who give it value. Our policies must enable us to recruit, to 
retain, and to fulfill the young men and women of America, and 
our Navy must reflect the demographic of our diverse Nation.
    Those are my priorities. You know them so well, because, 
without your leadership and your support and your interest, we 
would not be the Navy that we are today or the Navy we must be 
tomorrow.
    Thank you for all you do to maintain our Navy. To lead our 
Navy at this time is humbling, but, if confirmed, I am eager 
and ready to do so. I look forward to your questions.
    Senator Ben Nelson. Thank you, Admiral.
    Senator Inouye is here to make a more appropriate 
introduction, I believe.
    Senator Inouye.

STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM THE STATE 
                           OF HAWAII

    Senator Inouye. Mr. Chairman, I thank you very much.
    Thirty-four years ago, Admiral Gary Roughead was 
commissioned as an Ensign in the United States Navy. After 
graduating from the Naval Academy at Annapolis, the Admiral has 
had a long and distinguished career in the Navy. He has served 
several tours of duty at sea, and is remembered as the first 
naval officer to command both an Aegis destroyer and an Aegis 
cruiser. He also commanded the George Washington carrier battle 
group and served as both the Deputy Commander at the Pacific 
Command and the Commander of the Pacific Fleet.
    Today, Admiral Roughead is the Commander of the U.S. Fleet 
Forces Command, where he is responsible for providing manned, 
trained, and equipped Navy operating forces worldwide. In this 
capacity, he's also the supporting commander to U.S. JFCOM for 
Naval Global Force Management and the Navy Supporting Component 
to the U.S. Northern Command and U.S. STRATCOM.
    Mr. Chairman and members of the committee, this is a very, 
very impressive resume. Admiral Roughead's various 
responsibilities make him well-qualified to serve as the Navy's 
next CNO.
    But that is not the reason that I volunteered to recommend 
him to the committee. My reasons are much more personal. Mr. 
Chairman, for several years I've had the great pleasure to work 
with the Admiral in his leadership positions, particularly in 
the Pacific. I've come to know the Admiral as a man of keen 
vision, tireless energy, great wisdom, and compassion. Admiral 
Roughead possesses those elements of leadership which allow him 
to be effective without instilling fear among his subordinates. 
He has been successful without evoking jealousy among his 
peers, and he has demonstrated great competence without 
conceit.
    He is a very rare man and superior naval officer who is 
very deserving of the post to which he is nominated. The 
country can do no better than to have him at the helm.
    Mr. Chairman, I don't want to embarrass him, but there's 
one story I wish to pass on regarding this nomination. Several 
months ago, when it became known that Admiral Roughead was to 
be considered for nomination as the next CNO, I began receiving 
phone calls and messages from other senior naval leaders. In 
every case, they suggested that the Admiral was the right man 
for the job. But what was most surprising was when other 
candidates for the position also suggested that they believed 
that Admiral Roughead was the best choice. In all my years in 
the Senate, I do not recall another time when this has 
happened. I think that speaks volumes about the nominee.
    So, Mr. Chairman, I'm here this morning to strongly endorse 
the candidate, Admiral Gary Roughead, for the position of CNO. 
I believe he is a superb choice, and I wholeheartedly recommend 
him to the committee.
    I thank you very much, sir.
    Senator Warner. Thank you, Senator.
    Senator Ben Nelson. Thank you, Senator.
    General Ward?

STATEMENT OF GEN WILLIAM E. WARD, USA, FOR REAPPOINTMENT TO THE 
  GRADE OF GENERAL AND TO BE COMMANDER, UNITED STATES AFRICA 
                            COMMAND

    General Ward. Thank you, Mr. Chairman. Good morning, 
Senator Warner, distinguished members of the committee. Thank 
you for this opportunity to appear before you today.
    I am deeply honored to have been nominated by the President 
and the Secretary of the Defense to serve as the Commander of 
the U.S. Africa Command. This has been a journey for me that I 
am truly honored to be considered for, and I take this 
nomination with a great degree of humility, as well as 
serenity.
    With me today is my wife--and, Senator, I think that she 
would be okay with me saying--for 36 years. I hope so, anyway. 
[Laughter.]
    Joyce has been, as you've indicated, a very constant 
support, and, truly, she is the rock upon which I stand. Also 
with us today is our daughter, Kahni, and our son-in-law, 
Kenyatta, who are both residents of the State of Virginia, 
living here, and I am so proud of both of them and all that 
they do. While not here, our son, KJ, is watching these 
proceedings, if they've been televised, as he is overseas, 
working in Germany.
    Also accompanying me today is Ambassador Mary Carlin Yates, 
from the State Department (DOS). Mary has been tapped to be the 
Deputy to the Commander of this Command for Civil Military 
Affairs.
    The African continent is linked to the United States by 
history, culture, economics, and geostrategic significance. The 
continent's economic, social, political, and military 
importance in global affairs has grown tremendously. In my 
current capacity as Deputy Commander of EUCOM, I have traveled 
extensively on this vast continent to meet military and 
civilian leaders and witness our ongoing military engagement to 
help bring stability. From my observations, I believe our 
assistance to existing and emerging African security 
institutions is most effective when it fosters African 
solutions to African challenges.
    Many African leaders and their collective organizations, 
such as the African Union, have committed to work towards a 
safe and secure environment on the continent to promote 
effective development and governance. The United States EUCOM, 
Central Command (CENTCOM), and Pacific Command (PACOM) have 
made great strides working with African militaries to enhance 
the security on the continent through military exercises, 
humanitarian programs, training events, and support to 
peacekeeping operations.
    Much of their success stems from listening to the Africans 
and getting their perspective, and applying the solutions in 
accordance with their stated needs and within our means. The 
creation of AFRICOM will allow the DOD to view all of Africa 
through a single lens of a single unified command, allowing us 
to maximize our participation as a partner in pursuit of our 
mutual interests for peace, prosperity, and stability.
    I believe success and credibility on the continent will 
only be gained by a continuous and sustained engagement with 
African organizations and nations to enhance their capabilities 
and capacity in achieving the goal of a stable and prosperous 
Africa, where growth and expanded horizons exist for future 
generations.
    AFRICOM has the opportunity to redefine the concept of a 
unified command with a vision and a willingness to look beyond 
the current paradigm. Our interagency colleagues from DOS, the 
U.S. Agency for International Development (USAID), and many 
more who have also been working on the continent for decades 
will be a part of this endeavor. A vision of this new command 
will draw upon the expertise of its interagency members. 
Together, the work will best offer the chance that military 
efforts are harmonized with the work of the interagency, 
nongovernmental humanitarian organizations, private enterprise, 
and our international partners.
    Mr. Chairman, if I am confirmed by the Senate, I pledge to 
work hard to establish a command that is value-added for both 
the United States and the peoples of Africa. I have been 
privileged and honored to serve our great Nation as a soldier 
for over 36 years. I will be honored to continue to serve 
alongside the outstanding soldiers, sailors, airmen, marines, 
coastguardsmen, and statesmen of AFRICOM as their commander.
    I thank you for this opportunity, and I thank you for your 
support to our Nation's servicemembers.
    Senator Ben Nelson. Thank you, General.
    General Chilton?

STATEMENT OF GEN. KEVIN P. CHILTON, USAF, FOR REAPPOINTMENT TO 
    THE GRADE OF GENERAL AND TO BE COMMANDER, UNITED STATES 
                       STRATEGIC COMMAND

    General Chilton. Mr. Chairman, members of the committee, 
good morning.
    Let me begin by first thanking all of you for allowing us 
to testify before you today. I know how busy you have been, and 
how busy you are going to be over the coming days, and I 
greatly appreciate the opportunity to appear before you today.
    I'm both humbled by the confidence that the Secretary of 
Defense and the President placed in me with this nomination, 
and humbled by your consideration of my nomination for this 
very important position.
    But I assure you I wouldn't be here today, or anywhere in 
my career, if it wasn't for the wonderful family I have behind 
me. I'd like to take the opportunity to begin by introducing my 
wife, Cathy, of 19 years of marriage. Cathy, besides 
maintaining the overhead of taking care of me over these many 
years, somehow has managed to be the mother to four wonderful 
daughters, and continue in her service to this country as a 
reservist in our United States Air Force. Cathy is a Colonel in 
our United States Air Force Reserve. So, she's figured out a 
way to balance things far beyond anything I could ever do. Next 
to Cathy is my eldest daughter, Madison, who will be 
celebrating her 18th birthday tomorrow and is a senior in high 
school and working hard toward going to college, and has a 
love--she thinks--for veterinary medicine in her future. Next 
to her is my daughter, Mary Catherine, who is a sophomore in 
high school and is just the most wonderful person you'd ever 
want to meet. Sitting next to Mary is my daughter, Megan, who 
has begun her freshman year in high school this year. So, we 
have quite a team at St. Mary's there in Colorado Springs. 
Last, but certainly not least is my daughter, Morgan, who's 12 
years old, and is in sixth grade. I am a kept man. [Laughter.]
    Senator Inhofe. Now, you're not implying that you outrank 
Cathy.
    General Chilton. Sir, I mentioned that she was a Colonel in 
the Air Force Reserves. In the Chilton house, she is a 5-star 
General. [Laughter.]
    As I said, I truly would not be here today without their 
love and support.
    I am, again, humbled by the nomination to this very 
important position as the Commander of U.S. STRATCOM. If 
confirmed, I will be following in some big footsteps, those of 
my friend General ``Hoss'' Cartwright. I take this nomination 
very seriously, and I commit to you that I will give it my very 
best, if confirmed.
    Lastly, I'd like to thank you for the opportunity I've had 
to meet with various members of the committee, for the working 
relationships I've had with the Strategic Subcommittee in my 
previous role as the Joint Functional Component Commander for 
Space and Global Strike, and in my current position in Air 
Force Space Command. These are relationships I know I will look 
forward to continuing.
    I look forward to your questions, and again, thank you very 
much for this opportunity.
    Senator Ben Nelson. Thank you, General.
    General Mattis?

STATEMENT OF LT. GEN. JAMES N. MATTIS, USMC, TO BE GENERAL AND 
TO BE COMMANDER, UNITED STATES JOINT FORCES COMMAND AND SUPREME 
              ALLIED COMMANDER FOR TRANSFORMATION

    General Mattis. Mr. Chairman, Senator Warner, and 
distinguished members of the committee, thank you for the 
opportunity to appear before the committee and taking your 
valuable time for this hearing.
    I am honored by the confidence the President and the 
Secretary of Defense have placed in me to lead Supreme Allied 
Command Transformation and U.S. Joint Forces Command. If 
confirmed, I will do my best to carry out my duties and work 
openly with Congress. Should you confirm me, my first priority 
will be to support NATO and our combatant commanders in active 
operations against the enemy. My second priority will be 
preparing our NATO forces and the U.S. Joint Team to defeat 
future enemies. I will blend these duties, guided always by my 
respect for the troops, who put themselves on the line, for 
their families, and for the defense of our way of life.
    Thank you, again, Mr. Chairman, and I'm ready for your 
questions.
    Senator Ben Nelson. Thank you, General.
    I think we'll begin with a round of questions at 6 minutes 
each.
    General Chilton, should you be confirmed, we look forward 
to you joining an already great community in the Omaha/Bellevue 
area of Nebraska. The addition of your family will raise the 
population figures immensely in that area. [Laughter.]
    I know the folks at STRATCOM are eager for your experience 
and your leadership that you will bring to that position.
    As you think about the STRATCOM future, are there any major 
longer-term issues that need to be dealt with, other than the 
ones that you'll begin with on a day-to-day basis? What are 
your longer-term expectations?
    General Chilton. Senator, STRATCOM has a lot on its plate, 
and they have done, I think, a marvelous job in organizing all 
the various mission responsibilities that the command has been 
given.
    I think that a couple of areas will take increased focus 
and, I predict, will be growth areas in the future. One will be 
the responsibilities in the space domain. Clearly, space is no 
longer a sanctuary. That has been made clear to us this past 
year. I think we need to be extra focused in this area to make 
sure that we have the right command-and-control structures in 
place, the right information in place, the right command 
relationships in place to provide the space capabilities that 
all our forces around the world have become dependent upon.
    I think another area that we're going to want to raise our 
focus on is in cyberspace, the global network, and the threats 
to that particular domain. This is, again, another domain on 
which the entire joint force has become dependent on, it's 
integrated into the way we do operations, and it is a global 
capability for which STRATCOM has specific authorities and 
responsibilities.
    At the same time, we have to keep our eye on the ball with 
our strategic nuclear deterrent missions and our continuing 
mission effort to combat WMD, integrate missile defenses, 
coordinate information operations, and integrating 
intelligence, surveillance, and reconnaissance asset 
requirements for the combatant commands around the world.
    Senator Ben Nelson. The integration of offensive and 
defensive systems is a major challenge. Do you think that there 
are some specific things that might be helpful to make sure 
that integration is as seamless as it can be?
    General Chilton. Senator, I don't have any specific changes 
that I have thought of at this time. What I will focus on, if 
confirmed, is how we're moving forward in integrating missile 
defense and the active and passive defense part of the new 
triad with our offensive capabilities, both kinetic and 
nonkinetic.
    Senator Ben Nelson. Thank you.
    General Mattis, when we met, earlier this week, you made a 
very important point, in my opinion, that equipment and weapons 
augment our operations, but the real way to win in Iraq and 
Afghanistan, and perhaps in other parts of the world, is 
through human bonds and relationships that can be developed 
with our troops on the ground. You outlined the need to 
readdress training in language and in culture, as well. Could 
you give the committee some of your thoughts on how we might do 
that and why you think that's important?
    General Mattis. I can, Mr. Chairman. I believe we face an 
enemy today lacking--the current enemy lacks a fleet, lacks an 
air force. The way we need to dominate this enemy is to create 
the kinds of bonds with people across the globe that checkmates 
this enemy. We're going to have to be able to speak languages 
and understand cultures that perhaps in the past have not been 
so critical to our Nation's security. I think the way to do 
this is with an emphasis on training and education, and perhaps 
beyond things that we--historically, we looked at as the 
military priorities--tactics, use of equipment, that sort of 
thing. But we're in a type of war where we are not going to win 
with a new radio or a new ship or a new airplane. We need those 
in order to checkmate other enemies, so that they don't get 
brave in certain areas that we don't want to confront them in. 
But, at the same time, the enemy that we're up against today, 
we are going to have to think differently if we want to deny 
them an impact on our way of life.
    Senator Ben Nelson. General Ward, as you undertake perhaps 
one of the most challenging assignments that you might 
anticipate, how would you approach, as the new commander, 
dealing with cultures that perhaps have not had any real 
connection with the United States--insular governments, insular 
and isolated cultures? Do you have any thoughts about how you 
might approach that?
    General Ward. Mr. Chairman, thank you.
    If confirmed, I think one of the underriding endeavors to 
causing those with whom we would want to work to understand who 
we are, is to build effective relationships. The business of 
building relationships is a resource-intensive business, it 
requires investment in time, it requires investment in those 
things that are important to those with whom you want to be a 
partner. If confirmed, I would continue to reinforce the sorts 
of activities that would cause trust and confidence to be 
built, because we, as a Nation, understand, and those with whom 
we would want to partner understand us. That comes through 
relationships. That comes through doing the sorts of things 
that build mutual trust and confidence. That comes through 
doing the sorts of things because we understand, are supportive 
of mutual interests and mutual needs. We would invest time 
towards that end, sir.
    Senator Ben Nelson. As we look at other cultures, so very 
often we want those cultures to look like us almost 
immediately. Do you think that you can create a command there 
that will have, not only the interest in the other cultures, 
but the patience to deal with cultures that are different than 
ours, as opposed to wanting to absolutely proselyte those into 
our culture?
    General Ward. Senator, these things take time. I am aware 
of the time, and that's why the investment over time is so 
important, so that the trust and confidence that we would hope 
would be established is seen, not because of words, but because 
of deeds, and the things that we do in interacting over time. I 
believe that that is critically important.
    The other point there was, I'm an infantryman, and, for 
many years, I've valued the importance of being in a foxhole, 
symbolically, but also sometimes quite literally for 
protection. But another important aspect of that foxhole is, 
you have to get outside of it, go downrange and look back at it 
from the perspective of others. I think that is also critical 
to this endeavor, looking at this entire endeavor from the 
perspective of others, so that we have our best opportunity of 
getting in a way that causes the effects to be achieved that we 
want to achieve. We must see it through the eyes of others, as 
well.
    Senator Ben Nelson. Thank you.
    Senator Warner.
    Senator Warner. Thank you very much, Mr. Chairman.
    I have a question for each of you and ask that you 
abbreviate your responses.
    First, to the Admiral, the current CNO, an extraordinary 
man who is soon to become Chairman of the Joint Chiefs, put 
forth a new maritime strategy for national security. I presume 
that you have examined it and that you have made a decision as 
to whether you hope to continue along that same strategy.
    Admiral Roughead. Yes, Senator. I've been a participant in 
the development of that strategy this past year, participating 
in the conversations with the country.
    Senator Warner. Would you briefly describe what the tenets 
are of that strategy?
    Admiral Roughead. The tenets are--quite frankly, they 
address much of what my colleagues have just addressed, to look 
to the future, to not be captured by the status quo, to see 
where the strategic trends are going to take us, to provide a 
vision for our Navy and, actually, all of our maritime forces, 
because we're doing this in cooperation with the Marine Corps 
and the Coast Guard. But I intend to continue that process, and 
it will serve us well.
    Senator Warner. Second, he set a goal of 313 ships. We're 
at 278 now. Do you hope to close that gap in the tenure of your 
4 years, if confirmed, and is so, how?
    Admiral Roughead. If confirmed, Senator, I'm going to work 
to close that gap and get to 313 as a floor.
    Senator Warner. Do you feel that the current budget, as 
received by the Department of the Navy, will enable you to 
allocate to or are you going to require some funds over and 
above the normal allocation in the Department?
    Admiral Roughead. Senator, clearly the current budget, 
we're challenged to do that. If confirmed, I look forward to 
working with the committee to close that number.
    Senator Warner. Thank you.
    General Chilton, I think it's important that the committee 
bring up a matter at this time. It's slightly out of the usual 
questions that we ask of our nominees with regard to their 
future plans. On August 29, the Air Force discovered that a B-
52 bomber inadvertently transported six advanced cruise 
missiles armed with nuclear warheads from Minot, ND, to 
Barksdale, LA. Can you tell us what role you'll have in the 
investigation, and what steps you would take, if confirmed, to 
ensure that this type of professional error never occurs again?
    General Chilton. Senator, let me begin with my current 
role. As the Commander of Air Force Space Command, I am in 
charge of the safety and security of all of the nuclear weapons 
that support our land-based intercontinental ballistic 
missiles. It is a responsibility I take very seriously, as does 
the Commander of Air Combat Command with regard to the weapons 
for the B-52 and the B-2 bombers.
    Senator Warner. Understood.
    General Chilton. If confirmed as the Commander of STRATCOM, 
I would make sure that the service components who support 
STRATCOM, who are chartered to maintain the security and safety 
of our weapons, are doing their job. I would recommend that 
STRATCOM staff participate in the inspections of those 
facilities, and that we maintain the appropriate oversight, so 
that we can do our job at STRATCOM, be prepared to employ those 
weapons if called on. We cannot do that job if they are not 
safe and secure.
    Senator Warner. Clearly human error entered this equation, 
but that error may have occurred as a consequence of the 
appropriate check-offs or other security benchmarks that are in 
place. You're going to have to go back and review that system 
to determine where that human error entered and how it could 
have been prevented if we'd taken steps in accordance with a 
fixed series of benchmark checks. Is that correct?
    General Chilton. Absolutely. In my current role, the plan 
is to do that. Right now, Major General Raaberg is conducting 
the investigation. We expect that to report out, the end of 
this month. We have already taken actions, both in Air Force 
Space Command and in Air Combat Command, to review our 
procedures, to meet with those individuals responsible for 
executing those procedures to make sure they clearly understand 
the gravity of what they do, and make sure they are properly 
trained. As the STRATCOM Commander, I would want to see those 
results.
    Senator Warner. I do feel very firmly that appropriate 
accountability, if it is justified by the facts, should be 
invoked by the Department.
    General Mattis, you're going to have one of the toughest 
jobs of anyone; namely, that you have to determine what is in 
the inventory of the United States by virtue of available 
forces to match up with potential contingencies, and, if need 
be, an actual operating contingency, where forces have to move. 
I think you're going to have to tell those field commanders and 
others, from time to time, ``We don't have them.'' I hope that 
you're prepared, as I've come to know you through the years--
prepared to say, ``No, they're not there;'' that you need the 
resources to get them ready and have them available to meet 
those contingencies.
    General Mattis. Yes, Senator. I share your concern. I noted 
General Casey's testimony yesterday.
    Senator Warner. I draw your attention to that.
    General Mattis. Yes, sir. I think that it's something that 
we have to be prepared to say, and it's in the face of a U.S. 
military that has never been willing to say no when it came to 
a test of our resolve to defend this country. But we need to 
have a balancing act here, where we can candidly and openly 
share with you what we need to do our job, and recognize 
sometimes we simply don't have the forces to do something. We 
will provide that. I will get in consultation, if you confirm 
me, with the component commanders there at JFCOM, and make 
certain that's stated.
    Senator Warner. Thank you.
    Lastly, General Ward, your challenges are quite great. You 
are focused on, not only title 10, but title 22 activities. Why 
don't you describe the difference between the two and how 
you're going to balance that mission?
    General Ward. Senator, thank you.
    Briefly, the title 10 activities are those activities that 
we, within the DOD, have proponency for. The title 22 
activities are those within the DOS. The business of building 
relationships--building partners' capacity is, in fact, the job 
of each of those departments, as well as others within our 
government. We would look to create an interagency approach. We 
work in a very collaborative and harmonious way so that the 
efforts that we each bring to that particular endeavor are best 
realized in producing an effect that produces the stability, 
the security, and the capacity within these organizations that 
we'd like to see.
    I think the interagency construct of the command, as 
envisioned, as we work to bring that to full operational 
capability, will go a long way in ensuring that we are 
harmonized in working with the various elements of our 
Government; most notably, the DOS, USAID, and DOD.
    Senator Warner. I know your deputy will be from the DOS. 
Having had some modest experience, those two Departments don't 
always act like gear wheels together.
    General Ward. Yes, sir
    Senator Warner. You're going to have to solve some of that 
friction.
    My time is up.
    Senator Ben Nelson. Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    It's always interesting to follow my senior Senator and my 
senior colleague from Virginia, because we've had so many 
similar experiences, both in the military and in the Pentagon, 
that I find that some of the questions I was going to ask have 
just been asked. I think that's very healthy, in terms of 
looking at where the focus is from this committee.
    I'd, first of all, like to say, Mr. Chairman, that I've 
been able to meet personally and at length with all of the 
nominees. I'm very impressed with the quality and with the 
matching of talent to the jobs. I intend to support, strongly, 
everyone here. I've had the opportunity to ask a number of 
questions, as I said.
    I would say, to the Chilton family, having grown up in the 
Air Force, I spent my last 3 years in high school in Omaha, and 
I played a lot of baseball right across from the house where 
you're going to live. I never quite made it into the big house, 
but----[Laughter.]
    --that's a--it's a wonderful place to live. I have great 
confidence you're going to really enjoy it there.
    I would also like to say I've had the pleasure of knowing, 
for some time, General Mattis, and also Admiral Roughead, and 
both are just absolutely superb officers. General Mattis, I 
think it deserves to be pointed out, has commanded at every 
level in the Marine Corps, starting at a rifle platoon. When 
marines look at marines, that's the first thing you look at, in 
terms of respect. I'm very confident that you're going to get 
your hands on the issue that Senator Warner mentioned. It's a 
really serious issue, in terms of what we are trying to do, on 
both ends of this difficult problem, matching our people to the 
mission; at the same time, not--in some cases, not defining the 
mission properly when it comes to taking care of our people. 
So, we need the kind of integrity that you're going to bring 
here, and the kind of eyes you're going to put on this problem 
in order to get some balance.
    I have a couple of questions for Admiral Roughead, because 
of the nature of the job you're going to be doing, that I'm 
concerned about getting on the record. One is, what would you 
say--we know we have a 313 floor for the Navy. We also know 
that, in this type of environment, which cyclically occurs when 
we get involved in these extensive ground operations, where we 
have to sustain ground forces and we're burning up gear and all 
the rest of that. Sometimes we tend to forget the strategic 
issues that face us. That's something that General Chilton will 
face on one level, but it's definitely something that affects 
the Navy, because we start drawing down force structure, and it 
takes so long to gear it back up again. What would you say 
would be an optimal build right now? Not off the charts, but an 
optimal build for the United States Navy, to meet its strategic 
requirements around the world?
    Admiral Roughead. Senator, I believe that the shipbuilding 
plan that we have in place right now is giving us the balanced 
fleet that we need. We are introducing some new classes of 
ships that are challenging us in the shipbuilding account. But 
that balanced fleet will give us the capability we need from 
the high end to the more nontraditional missions that we're 
going to face. So, as we have looked at our maritime strategy, 
I believe the build plan that we are on will give us what we 
need----
    Senator Webb. Did you mention 313 is a floor?
    Admiral Roughead. Yes, sir.
    Senator Webb. What would be an optimal build?
    Admiral Roughead. I would say that, as we look to the 
future, the need to increase our ability to operate more in the 
green water, closer to shore, is an area that we must look--and 
I intend, if confirmed, to pursue that and explore any growth 
in that area.
    Senator Webb. So, you're not going to put a number on it.
    Admiral Roughead. No, sir.
    Senator Webb. Okay.
    Admiral Roughead. It's very worthy of deeper consideration.
    Senator Webb. I have two questions that I would like to get 
written responses to. I don't want to take the time of the 
committee on them. They're rather detailed. One of them relates 
to the facilities in Norfolk Naval Shipyard that I think we 
need to be paying some attention to. The other relates to 
issues of home porting--carrier home porting and your views on 
strategic dispersal in the modern era, where we're facing a 
different kind of--in my view, a different kind of threat--the 
terrorism threat, as opposed to the traditional conventional 
threat that people like to use. I want to get those to you, and 
I would appreciate a pretty quick turnaround on them, if you 
could do it.
    Admiral Roughead. Yes, sir, I will.
    Senator Webb. Thank you.
    Thank you, Mr. Chairman.
    Senator Warner. Mr. Chairman, if I might intervene, I would 
hope that, General Chilton, you will issue a early invitation 
to my colleague from Virginia to, at long last, come to the big 
house. [Laughter.]
    General Chilton. If confirmed, that'll be top on the list. 
[Laughter.]
    Senator Webb. I could take you to some pretty interesting 
places. [Laughter.]
    Senator Ben Nelson. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I have one question I want to ask each of the witnesses, 
except for General Chilton, because he won't be dealing 
directly with it, and that has to do with training and 
equipping. We started the program, as you all know--I've talked 
to you--although I apologize to you, Admiral, because we had to 
cancel our meeting----
    Admiral Roughead. Yes, sir.
    Senator Inhofe.--because of votes--but it's something that 
we've tried. It's been very successful. I've made some 15 trips 
to the area of responsibility over there, and the commanders in 
the field all tell me that 1206, 1207, and 1208, and the 
Commanders Emergency Response Program (CERP) are very, very 
critical, and very, very significant. So, I'm going to ask that 
question of three of you. Let's start with you, General Mattis.
    General Mattis. Sir, this is the kind of war where 
ammunition, at times, is better spent--the money for that is 
better spent trying to make common cause with the people. This 
is not a war that can be won purely by military means. We've 
all heard that a number of times. We've seen the proof on the 
ground. Those funds allow us to make immediate impacts and to 
bring people around who may have been brought up on a diet of 
hatred and bias, and bridge over to them, and create a sense of 
common purpose. You've seen this work in al Anbar province, I 
think for when the enemy made mistakes, we could then exploit 
those mistakes.
    Senator Inhofe. Yes, sir. So, you strongly support that.
    General Mattis. Very strongly.
    Senator Inhofe. Also, we had a conversation in my office 
about your transformation and your commitment to the Future 
Combat System (FCS). If you'd just make one quick comment on 
that, we'll go on----
    General Mattis. Yes, sir.
    Senator Inhofe.--to the next one.
    General Mattis. The Army has to modernize, sir. FCS is the 
roadmap they've laid out. We don't need other countries with 
artillery that can outrange ours, and this sort of thing. FCS 
addresses those deficiencies.
    Senator Inhofe. All right, fine.
    General Chilton--and let me thank all four of you for your 
service. I'm looking forward to supporting all four of you in 
this confirmation process. I've often thought--I look back 
wistfully at the days of the Cold War, when things were 
predictable. When you look at our missile defense system right 
now--which is deficient, in my opinion, in the boost phase, but 
we're making progress in midcourse and terminal phase--do you 
agree with me that perhaps that threat is greater now than it 
was even back in the cold war, in terms of Iran and other 
countries--North Korea and China--having capabilities they 
didn't have before?
    General Chilton. Yes, sir, I'd agree that the threat is 
greater, and it's more dispersed around the globe, as well.
    Senator Inhofe. Yes, and do you think we're going to be 
equipped to deal with that?
    General Chilton. Senator, I think that is a goal of----
    Senator Inhofe. That's your job.
    General Chilton. Well, my job----
    Senator Inhofe. Partially.
    General Chilton.--if confirmed, is to make sure we have an 
integrated approach to missile defense that----
    Senator Inhofe. Right.
    General Chilton.--both serves the local theater commander, 
as well as the global needs in defense of----
    Senator Inhofe. Yes.
    General Chilton.--the United States of America.
    Senator Inhofe. Good. Very good.
    Admiral Roughead, I won't ask you if you agree with me or 
with the President, because you obviously are the President's 
nominee, and not mine. I don't agree with the Law of the Sea 
Treaty, and I think there are a lot of deficiencies. When you 
look at this, the level of a superbureaucracy that we would be 
answering to, I have some serious sovereignty questions.
    The only thing I would ask you is--the Law of the Sea 
Treaty does identify four specific areas in which ships may be 
stopped at high seas: human trafficking, drug trafficking, 
piracy, and unauthorized broadcasting. Doesn't have anything to 
do--and I read this and come to the conclusion that if we have 
knowledge that--intelligence that there's terrorist activities 
or something like this, that we would not have that authority. 
Does this bother you?
    Admiral Roughead. Senator, when I look at the Law of the 
Sea Treaty, I believe our operations at sea will be enhanced by 
the Law of the Sea Treaty. The codification----
    Senator Inhofe. That wasn't my question. My question was, 
If we only have four ways of stopping them, and one of them is 
not our suspicion they might have WMD or terrorism, is that a 
concern to you?
    Admiral Roughead. Senator, I believe that the authorities 
that we have, and what would be afforded in the treaty, give us 
the authorities we need to act on the high seas.
    Senator Inhofe. All right. Military actions are exempt 
under this treaty, but it doesn't define what ``military 
actions'' are. Do you have a definition for that?
    Admiral Roughead. Senator, I believe that the treaty will 
allow us to conduct the operations that support our access to 
our operations. So----
    Senator Inhofe. Yes. Well, I'm looking forward to 
supporting you. I disagree with you on this issue.
    Admiral Roughead. Sure.
    Senator Inhofe. Now, General Ward--first of all, we've had 
a chance to really get to know each other. I'm delighted when I 
look behind you and I see Mary Yates, because I've known Mary 
in Burundi, Ghana, and other places, and I think you're going 
to be really served well by her. Also, you and she have 
something in common, that you agree and understand that--how 
important, in the African continent, how--relationships are. As 
you and I have talked before, I've had occasion to be over 
there, probably more than 30 times, and develop these 
relationships.
    So, I'd first like to ask you if you would--when you take 
this on--and I'm delighted we have AFRICOM. I have not liked 
the way it's been divided between EUCOM and CENTCOM before, and 
we've talked about this. One area of concern of mine is western 
Sahara. Right now, I would only ask that you listen to some of 
the experiences of former Secretary James Baker and the efforts 
that he has had in trying to do something about this group 
that's been wandering in the wilderness now for some 30 years. 
I won't ask for a response, except that you will have that on 
your radar screen.
    Second, we do have, let's get back to train and equip. Do 
you agree with the others on train and equip----
    General Ward. I do, Senator. Those authorities and 
flexibilities that are outlined in 1206, 1207, 1208, as well as 
the expanded CERP, are precisely the sorts of tools that----
    Senator Inhofe. Good.
    General Ward.--are helpful in the field for doing things 
that make a difference in the near term for long-term, positive 
consequences.
    Senator Inhofe. That's good. As far as the five African 
brigades, it's not as well defined as I'd like it, but it's my 
understanding--and not too many people on this committee are 
really familiar with that--that we are really helping the 
Africans to help themselves, to help them develop these--as we 
see the squeeze in the Middle East, and we see the terrorism 
activity going through Djibouti and down through the Horn of 
Africa, and proliferating--I would only ask if you have any 
opinions right now that you'd like to share with us about the 
African brigades that we're pursuing right now.
    General Ward. Those five African brigades, Senator, are in 
differing levels of readiness, as well as capability. It's 
important, I think, to be a partner with them to cause them to 
be as capable as they can be, so that they can, indeed, pursue 
the course that they've set out for themselves--i.e., taking 
care of their problems, their challenges, either within their 
borders, regionally, or on the continent. To the degree that we 
can be of an assist to them in helping them achieve that 
capacity, then that capability, over time, I believe, is 
something that we ought to be pursuing.
    Senator Inhofe. Exactly the response I wanted. Thank you 
very much, and you're the man for the job.
    I know my time's up. Admiral Roughead, I forgot to ask you 
the train and equip question.
    Admiral Roughead. Absolutely, Senator. As the Commander in 
the Pacific, I made great use, and it makes----
    Senator Inhofe. Good.
    Admiral Roughead.--a huge difference.
    Senator Inhofe. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Ben Nelson. Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    General Chilton, it's good to see all of your family here. 
You don't have any boys? [Laughter.]
    General Chilton. I don't, Senator. We have a boy dog at the 
house. [Laughter.]
    Senator Warner. Oh, boy dog. Oh. [Laughter.]
    General Chilton. ``A.''
    Senator Bill Nelson. I'm going to ask you to respond in 
writing to the question. Our Strategic Forces Subcommittee is 
going to be looking into the question of that nuclear weapon 
that was flown from the north part of the country down to the 
southern part of the country, and what we're going to do about 
that, and then we'll confer with you as we get ready for that 
hearing.
    General Chilton. Yes, sir.
    [The information referred to follows:]

    Individuals at the highest level of Department of Defense (DOD) 
remain engaged in the examination of this event, and investigations 
into the incident will continue at all echelons over the next 4-6 
months. Air Force leadership has requested review of the incident and 
resulting Air Force actions by external organizations with varying 
roles, to include the Defense Threat Reduction Agency, Nuclear Support 
Staff, the Joint Staff, the DOD Inspector General, and U.S. Strategic 
Command (STRATCOM). Major General Raaberg, ACC/A3, completed an 
investigation of the chain of events that resulted in this occurrence, 
at the direction of Commander, Air Combat Command. Commander. U.S. 
STRATCOM has requested joint assessment and review of nuclear expertise 
imbedded on staff to support ongoing investigations and review the role 
of U.S. STRATCOM in providing oversight of services nuclear surety 
processes.

    Senator Bill Nelson. I want to ask you about--as we're 
trying to give the warfighter and the commander greater 
flexibility of getting up smaller satellites in operationally 
responsive space, you have said that you think that the 
STRATCOM should explore the feasibility of rapidly deploying 
capabilities that can help these combatant commanders. Can you 
describe for the committee what kind of investments you think 
that are necessary at Cape Canaveral and Vandenberg in order to 
sustain and modernize these launch facilities so you could have 
operationally responsive space?
    General Chilton. Senator, I would say the investments we 
need at Vandenberg and at Cape Canaveral go beyond just any 
support we would provide for a responsive space launch 
capability. Those two sites are fundamental to our access to 
space, as a Nation, not only for military and intelligence 
purposes, but also for commercial and for the National 
Aeronautics and Space Administration, obviously. Over the 
years--and I've seen this since I returned to the Air Force 
back in 1998--we have had ongoing efforts to apply bandages, is 
what I would call it, to sustain these launch sites. In my 
current position as Commander of Air Force Space Command, 
looking forward to the future, we have spent a good part of 
this year taking a step back and asking, ``what can we do to 
stop bandaiding the problems and actually move our launch sites 
and the infrastructure forward to the 21st century and make the 
critical improvements that we will need, to support not only a 
responsive launch capability, but our continued operations?'' 
We're preparing to bring those concerns forward into the 2010 
Program Objective Memorandum period, the investments we think 
we need to be making across the Future Years Defense Program to 
bring us up to where we need to be for the future.
    Senator Bill Nelson. Okay. General Helms, the commander 
down there, is concerned that we have that modernization, so 
that we can respond. I'm sure the commander at Vandenberg feels 
the same.
    General Chilton. Absolutely.
    Senator Bill Nelson. So, we're going to need to work with 
you on that, and I assume that you and the new Space Command 
Commander will be able to work together.
    General Chilton. Absolutely, Senator. We'll focus our 
efforts on that.
    Senator Bill Nelson. Admiral Roughead, following up Senator 
Webb's question that he said he was going to ask you in 
writing, and on behalf of my colleague from Florida, Senator 
Martinez, I want to recall, for the record of the committee, 
what Admiral Clark, the CNO, said to this committee in February 
2005, ``The Atlantic fleet should continue to be dispersed''--
talking about the carriers--``in two home ports.'' He went on 
to say, ``The Navy should have two carrier-capable home ports 
on each coast.'' Continuing the quote, ``It is my belief that 
it would be a serious strategic mistake to have all of those 
key assets of our Navy tied up in one port.''
    Then, Deputy Secretary Gordon England, as the former 
Secretary of the Navy, testified to our committee, ``My 
judgment is that dispersion is still the situation. A nuclear 
carrier should be in Florida to replace the John F. Kennedy to 
get some dispersion.''
    Now, we've talked about this privately. On behalf of my 
colleague, Senator Martinez, and I, what we'd like is to have 
you have the opportunity, for the record, to state, what do you 
consider to be in the strategic assets of our country with 
regard to the dispersal of the carrier assets?
    [The information referred to follows:]

    In the post-September 11 world, we must be aware of our 
vulnerabilities with regard to our fleet, people, and infrastructure. 
The Navy regularly assesses the force posture, strategic dispersal and 
force protection needs of our afloat forces and our shore 
infrastructure. In our assessments we examine the strategic environment 
and potential threats. We assess where we need assets positioned to 
generate the response and the presence to respond to likely 
contingencies and tasking.
    Before making decisions about positioning of forces, we must 
consider a variety of factors including national security requirements, 
environmental impacts, total cost and other programmatic implications, 
impact on sailors and their families, and the current and future 
strategic environment.

    Admiral Roughead. Senator, similar to what we've just 
completed in the Pacific, where we looked at what the force 
posture and the positioning of those forces should be, I 
believe the same process needs to take place on the East Coast 
to look at the strategic environment that, not only we're in 
today, but where we'll be going tomorrow, to look at what we 
need positioned to generate the response and the presence that 
will be important to our Nation and our Navy. That must be done 
in the context of what we anticipate.
    We have underway an environmental impact statement in 
Mayport that is looking at a range of options in Mayport--13 
options. I believe all that must come together to determine 
what is best for the country and best for the Navy, in being 
able to generate effective naval forces. If confirmed, I look 
forward to being engaged in that, and to continuing to have 
that discussion.
    Senator Bill Nelson. Do you have in your mind that you're 
going, as CNO, to implement a plan for carrying out this 
principle of strategic dispersal?
    Admiral Roughead. As CNO, I will be making a recommendation 
to the Secretary as to where I believe our forces should be, 
what those forces should be--not just the afloat forces, but 
also our infrastructure, which is so important in being able to 
generate that power. I intend to participate in that very 
actively.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Senator Ben Nelson. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    First, let me thank all of you for your public service, 
your extraordinary service. I look forward to supporting each 
of you in your new role.
    Admiral Roughead, it's a particular pleasure to welcome you 
back to Washington. We worked together when you were head of 
the Navy's Liaison Office, and I really enjoyed working with 
you, particularly on shipbuilding issues back then. I could not 
be more delighted with the President's nomination of you to be 
the new CNO.
    Admiral Roughead. Thank you, Senator.
    Senator Collins. I was very pleased that my two colleagues 
from Virginia mentioned Admiral Mullen's farsighted plan for a 
313-ship Navy. You and I had the opportunity to discuss that in 
the office. I was very pleased to hear you repeat, publicly 
today, that you view it as a floor, because I think we have 
been underfunding shipbuilding for many years, and it takes a 
great deal of time to turn that around to ensure that we do 
have the capability necessary to meet our national security 
requirements. I look forward to ensuring that you have the 
resources, not only to implement, but go beyond Admiral 
Mullen's plan.
    Now, part of the plan includes 55 Littoral Combat Ships 
(LCS), which will give the Navy a new capability that it has 
not previously had. That program has run into some problems, 
both with schedule and with cost overruns. But it seems to me 
that it's still vitally important. I would like to hear your 
comments on the importance of the LCS program, in terms of 
giving the Navy a needed capability that it currently lacks, 
but also in helping us achieve the goal of a 313-ship fleet.
    Admiral Roughead. Thank you, Senator.
    The LCS is very important for the Navy. I've said, on 
several occasions, that, had I had some LCS in the Pacific when 
I was commanding the fleet there, I could have done much more. 
The LCS represents a new way of taking on the threats that we 
anticipate in the future. It is incorporating new technology 
that is relevant to the manning concepts that we will have to 
have in place as we move into the future, and LCS brings that 
together. It is very important. It is not simply a ship that 
will be used in what I refer to as the green water, but it's 
one that, because of its flexibility in antisubmarine warfare 
and mine warfare and antisurface warfare. It will be integral 
into our more conventional force packages, our carrier strike 
groups and our expeditionary strike groups.
    So, even though LCS has gone through some challenges, I 
believe that the steps that the Secretary and others have taken 
are appropriate to get that ship to the fleet, where we need 
it, and we need it quickly, and we need it in those numbers 
that you spoke of, 55. LCS is very important to our Navy.
    Senator Collins. Thank you.
    Another part of the plan that it's very important to 
achieve the size fleet that we need is the guided missile 
destroy (DDG) modernization program. Could you comment on that, 
as well?
    Admiral Roughead. Yes, Senator. In addition to the DDG, 
also our amphibious transport dock and our cruiser 
modernization, it is important that, when we have a fleet of 
313 ships, that those ships be relevant to the type of threats 
that we will face in the future. The modernization plan allows 
us to do that. We have made significant investments in our 
ships, particularly our DDGs and cruisers. We must make that 
modernization plan a reality, so that those ships will be able 
to serve for the life that we envisioned. That is equally as 
important to shipbuilding, but keeping our current fleet 
relevant and capable into the future.
    Senator Collins. Indeed, we're able to apply some of the 
lessons that we're learning on the DDG-1000 project in order to 
reduce the crew size, for example, on the DDG-51 class of 
destroyers, which I think also has benefits, in terms of the 
life-cycle costs.
    Admiral Roughead. Yes, ma'am.
    Senator Collins. Admiral, I want to switch to another 
important installation in my home State of Maine, and that is 
the Portsmouth Naval Shipyard, which is one of the four public 
yards that the Navy has. Recently, the employees and the 
commander of the shipyard brought to my attention that they 
have been forced to turn away submarine availabilities, 
including specialized repair activities for the U.S.S. 
Alexandria and the U.S.S. San Juan, due to the workforce 
constraints that have been imposed by the Navy. Portsmouth is 
now limited to a civilian workforce of just over 3,900 
civilians, yet the Navy has submarines in need of maintenance 
and repair work, and it seems that this work is being delayed 
due to what appear to be arbitrary manpower and overtime 
limitations. In addition, there is always unforeseen emergency 
maintenance or repair work that needs to be done.
    If you are confirmed, will you evaluate the imposed 
workforce levels at the public shipyards, including Portsmouth, 
to ensure that they're sufficient to handle emergency and other 
unforeseen work on Navy ships and submarines?
    Admiral Roughead. I will, Senator, because our four Navy 
shipyards and the work that they do, particularly on our 
nuclear fleet, is very, very important. It's not just the 
workforce, but the scheduling and the improvements that we make 
there. All are factors in providing a ready fleet, and I will 
be involved in that very closely.
    Senator Collins. Thank you. I very much look forward to 
working with you, as well as the other members of the panel.
    The other members of the panel, I do have questions, for 
the record, for you. But Maine's a big Navy State, so I had to 
focus on Admiral Roughead.
    Thank you.
    Admiral Roughead. Thank you.
    Senator Ben Nelson. Thank you, Senator.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    I, too, want to add my support of the gentlemen who have 
been nominated for these positions. This is a panel and a group 
of nominees with great experience, great skill, and we're 
grateful for your service to our country, each and every one of 
you, and to your families--we appreciate the sacrifice and the 
service of the families also undertake whenever you serve in 
your capacity. So, we appreciate your willingness to take on 
these important responsibilities.
    General Chilton, I remember visiting with you about your 
daughters in my office, and I have two daughters that are--
well, one's in college and one's in high school. You have 
adventurous days ahead of you, and I only had half the 
adventure, I guess I would say. But it's great fun, in all of 
their activities, and I know you're going to enjoy those days 
ahead of you.
    I would like to ask you a question regarding a statement 
that you made in response to the advance policy questions 
regarding ballistic missile defense. You stated, and I quote, 
that the ``unified command plan directs STRATCOM to plan, 
integrate, coordinate global missile defense operations and 
support for missile defense, as well as to develop and advocate 
missile defense characteristics and capabilities for all 
combatant commands. If confirmed, this is an area that I will 
focus on to be sure I clearly understand the command's 
authorities and responsibilities, as well as those of the 
regional combatant commanders and the Missile Defense Agency 
(MDA).''
    Currently, MDA is tasked with many funding responsibilities 
of missile defense, which include research and development, 
procurement, and testing. This responsibility places a major 
burden on the agency's primary research and development 
mission. Assuming that you are confirmed as STRATCOM Commander, 
I'd like to know what your thoughts are on seeing more 
operational control of missile defense given to the active 
forces in the manner that you described.
    General Chilton. Senator, that is the goal, I believe, of 
MDA to acquire these systems and then turn them over to the 
Active Forces to operate as they mature and become ready. That 
is my understanding of where we're headed. For the Airborne 
Laser program, in particular, as the former Air Force 
programmer, I know we were looking forward to the time period 
when that system became certified for use. The Air Force was 
going to take over operation of that system in support of the 
combatant commanders around the world.
    So, that is the way I see it moving forward.
    Senator Thune. One of the questions I want to ask with 
regard to the future of some of these programs is, do you 
believe that direct energy technology is important to the 
future of missile defense?
    General Chilton. I absolutely believe that's an area we 
need to continue to explore, because the potential return for 
developing that type of capability, I think, could be 
revolutionary.
    Senator Thune. One of the, obviously, strategic 
capabilities--our newest strategic capabilities--is missile 
defense. By the end of the year, we should have 24 groundbased 
interceptors fielded for the protection of the Homeland against 
long-range ballistic missile threats; approximately 21 SM-3 
missiles on Navy ships--10 Navy ships--to provide protection 
against medium-range missiles; and hundreds of Patriot PACOM-3 
missiles to protect against short-range ballistic missile 
threats. Missile defense capabilities have been used, now, in 
the two Gulf wars to protect U.S. forces; and during July 2006, 
the groundbased midcourse defense system was ready to intercept 
a long-range North Korean test missile, should it have been 
necessary. How do you view the role of missile defense, as a 
strategic capability?
    General Chilton. It's absolutely a critical part, Senator, 
of our triad today, which morphed from a classic, just 
offensive, nuclear triad of the Cold War to one that provides 
nuclear, conventional, and nonkinetic offensive capabilities 
balanced with a defensive posture and defensive capabilities 
through the missile defense system, and then our responsive 
infrastructure being the third leg of that new triad. So, 
missile defense is an absolutely critical element of the 
strategic deterrent posture for this country.
    Senator Thune. What impact do you think our initial 
deployments have on our ability to address potential threats 
that are posed by North Korea and Iran?
    General Chilton. My understanding of our deployments today 
is that they are focused to the west to deter against a North 
Korean attack, and that we currently do not have the 
capabilities in place for an Iranian attack, but this is a 
threat that we foresee developing in the future.
    Senator Thune. Do you have confidence in our currently-
deployed missile defense systems?
    General Chilton. I do, sir, from the level of knowledge 
that I have of them today. But, if confirmed, this will be an 
area I will study. My current duties do not have me focusing a 
lot on the end-to-end portion of that. As Air Force Space 
Command Commander, we participate in the early-warning portion 
and the midcourse tracking with some of our radar sites, and 
I'm very confident in their ability to do their mission. The 
end-to-end portion of that, I'll delve deeper into, if 
confirmed.
    Senator Thune. With regard to the missile defense 
capabilities through 2013, do you think that these deployments 
are going to keep pace with your understanding of the threats?
    General Chilton. Senator, I do not know the schedule, 
today, of the deployment plan for those weapons. I couldn't 
give you an answer today as to whether or not that schedule 
matches up with existing threat predictions.
    Senator Thune. Well, again, my time is expired, so I didn't 
get a chance to ask the other members of the panel questions. 
But thank you, again, for your service to our country, and we 
look forward to your confirmation.
    Thank you very much.
    General Chilton. Thank you, Senator.
    Senator Thune. Thanks, Mr. Chairman.
    Senator Ben Nelson. Thank you, Senator.
    We have five votes, starting around 11 o'clock, so I think 
Senator Warner and I will wrap up the questions, and then we'll 
gavel the hearing over.
    Senator Warner, you indicated that you have additional 
questions.
    Senator Warner. Thank you, Mr. Chairman, I do.
    I'd like to start off with General Chilton. I listened very 
carefully to your testimony, and read through all of the 
documents and your responses to questions. I want to get down 
to this concept of deterrence in strategic military activities 
today, worldwide.
    I've had some modest experience, some 5 years in the 
Pentagon in the Navy Secretariat, and then coming here for 
quite a few years. I've seen the evolution of this doctrine 
through those years. It's predicated on the concept of mutual-
assured destruction: those nations that possess a nuclear 
weapon, you deal with them, recognizing their capabilities, and 
the doctrine of deterrence plays a critical role. Each nation 
carefully reviews any consideration of even putting on 
readiness their strategic nuclear capability, and certainly 
before considering utilizing it, evaluates--what are the 
consequences were the other country to initiate such a strike?
    Those years I was in the Pentagon, we were at the pitch 
intensity in what we've known as the Cold War with the Soviet 
Union. But, throughout that period, we were always able to 
engage the Soviet military in positive steps. For example, we 
established the hotline, whereby each leader of their nation--
Soviet Union and the United States--could pick up a phone and 
instantaneously reach their counterpart. We went through the 
Incidents at Sea Agreement, which was negotiated with the 
Soviet navy at the time their navy was challenging us on the 
high seas of the world, challenging in certain respects. They 
had capabilities that matched ours. I could enumerate a number 
of other steps that we took between the United States and the 
Soviet Union.
    General Abizaid, a man whom I greatly respect, said 
publicly the other day--and I want to try and paraphrase it 
accurately--we could learn to live with a nation such as Iran, 
should they possess a nuclear weapon, but I quickly draw to 
your attention my response to that statement, that I do not see 
in Iran today any of the capabilities, in terms of a military 
chain of command, a review process, a rational, quiet analysis 
of the consequences, should they ever obtain such a weapon, of 
the utilization of that weapon. Therefore, I somewhat disagree 
with my very valued friend, General Abizaid.
    Now, North Korea, they do have a very significant military 
chain of command. Again, the decision rests with the supreme 
leader, so to speak. But, again, we're working our way through 
that equation, I think, rather well, in terms of their 
capability. Let's hope that that is removed from the world 
scene. It is a world issue, it isn't simply a U.S. issue.
    But I don't see it with Iran and such other nations that 
may be trying to acquire the very fundamentals of constructing 
a weapon. I want to get your reaction of how we can rely on 
that concept of deterrence with a nation that does not have, in 
our judgment, that very careful review and decisionmaking 
policy by a government. How do we employ it today against these 
emerging nations who desire to acquire these weapons?
    General Chilton. Senator, I think the two key things I'm 
hearing from you that worked so well in the Cold War time 
period, were both transparency and confidence-building measures 
that were taken between the countries to make sure we 
understood each other's capability and decisionmaking 
processes. I'm a proponent of transparency and confidence-
building measures, and military-to-military relationships with 
all countries.
    I also believe that, just because you don't completely 
understand a competitor's process at a particular moment, it 
does not mean they cannot be deterred, because of the 
consequences that they could perceive from an untoward action 
toward another country; in particular, us. It is also important 
to understand our capability and our willingness to defend our 
country. I think we always need to be clear about that, that we 
are capable, willing, and ready, and then, even when there is 
not transparency, I believe there still is a level of 
deterrence. But there, as you point out, would remain a level 
of uncertainty that is something that we would want to focus on 
to remove that uncertainty.
    Senator Warner. I don't wish to engage in any saber-
rattling here at this time--but to just draw to your attention 
that we have to go back and revisit how the doctrine of mutual 
assured destruction and other things worked in the past, and 
examine them in the framework of--I'm not singling out Iran--
but those emerging nations. Just look at the performance of the 
President of Iran here recently, publicly, against a background 
of many similar actions and statements that just are so 
illogical. It does begin to show that the doctrine of 
deterrence needs to be reexamined with respect to these 
emerging nations, given the apparent absence of that structure 
that was present during the Cold War years.
    Admiral Roughead, I'm glad that you, I thought, in a very 
diplomatic and straightforward way, handled questions from our 
colleague from Florida. As you readily are aware, there's a 
little engagement between the States of Virginia and Florida on 
the question of port security. But I've always felt that it's 
imperative that we, in the Congress, support our military when 
the military makes a decision which is in the best interest of 
our Nation.
    Now, the doctrine of strategic dispersal--again, my first 
introduction was back in the years of the Cold War, when I was 
privileged to serve in the Navy Secretariat, and that doctrine 
was entirely different than it is today. While, during that 
period, I think there was some validity to dispersal, today 
it's quite different. At any one time in Virginia--I know you 
know from your own experience--many times there are no carriers 
in port, and then perhaps one coming in for upkeep and so 
forth, and very quickly that ship is rotated out. It's not as 
if suddenly everything is focused in one port. Those days 
fortunately are pretty well gone because of the need to keep in 
an operational status.
    As you work through this, I would hope that you take into 
consideration that there is a dramatic change in what I call 
the fundamentals of strategic dispersal today from what it was 
many years ago.
    Lastly, I'd like to give you the opportunity to present 
your views about the Law of the Sea. That issue could be before 
the Senate very shortly. I again draw on some modest work in 
that area, when I was in the Navy Secretariat. I went to the 
Law of the Sea Conferences, at the direction of the Secretary 
of Defense, to represent our country, and particularly to make 
certain that the future operations of the United States Navy 
were not in any way abrogated or impaired by a treaty. Now, 
that work in the early 1970s on that treaty at that time has 
pretty well been displaced by the treaty today which, in my 
examination, as you said, enhances--in no way deters or 
restricts--but, in fact, enhances the utility and the value of 
our ships, deployed wherever they are in the world on the high 
seas. Am I correct?
    Admiral Roughead. Yes, Senator, it enhances, it codifies 
what we need, to be able to operate. More importantly, by being 
party to the treaty, it will give us a seat at the table as 
that treaty is discussed, as provisions are considered; because 
I believe, if you're not at the table, you don't have a voice. 
I believe our efforts in the maritime domain need to be 
influenced by what we think, what we believe, and what's in the 
best interest of our country.
    I also saw, in the Pacific, where, by not being party to 
the treaty, as we were working on some of the proliferation 
security initiatives, that some countries would avoid 
participating with us because of that.
    Senator Warner. The United States was not a signatory to 
that treaty; and, therefore, the Navy did suffer, as a 
consequence.
    Admiral Roughead. That's correct. We did. Countries that 
were very important to our relationships out there were very 
apprehensive, and, in some cases, didn't participate. I would 
never recommend being party to anything that limited our 
strategic mobility, the ability to defend the country, or that 
would put our sailors in harm's way.
    Senator Warner. Fine.
    Admiral Roughead. I don't see anything in the treaty that 
would do that, and I believe we should accede to that treaty.
    Senator Warner. Mr. Chairman, I would ask that the 
testimony of Admiral Roughead be conveyed to the chairman of 
the Senate Foreign Relations Committee. They're going to have 
primary jurisdiction and probably hold such hearings as they 
deem necessary as they are reviewing this treaty.
    I presume that is already well known and documented and 
submitted as a part of the support for the Senate's 
consideration of this treaty. Do you know that?
    Admiral Roughead. I do not know specifically what was----
    Senator Warner. Could you verify that?
    Admiral Roughead. But I will verify that.
    Senator Warner. We will forward your testimony, but I would 
hope that the DOD has made known the views of the Navy with 
regard to that treaty.
    Admiral Roughead. Yes, sir.
    Senator Warner. Thank you very much.
    General Mattis, I read through your response to the 
questions about your ``NATO hat,'' and this thing is drawn up 
very cleverly by those writers in the Pentagon, about all your 
responsibility with NATO, and you responded to a series of 
questions. But, in reading through your responses to the 
questions, I do not see any reference to--and there may be a 
good reason for it--a situation that faces our forces operating 
in Iraq today which is of great concern to this Senator. Excuse 
me, in Afghanistan. Oftentimes, we're focused so much on Iraq, 
we forget about a very essential military operation that we're 
undertaking both directly with our military forces in 
Afghanistan, and as a part of the NATO force, of which you have 
these responsibilities. It's set out in our record in response 
to your questions, so I won't ask for further amplification.
    But here's the problem. In Afghanistan today, the growth of 
narcotics is growing exponentially. The increase of the current 
narcotic crop this past year was somewhere between 15 and 20 
percent over what it was the year before. The funds from the 
sale of those narcotics, grown in Afghanistan, processed, to 
some degree, in Afghanistan, and then shipped throughout 
Europe, has resulted in enormous amounts of dollars and other 
forms of compensation flowing back to the Taliban and other 
insurgents in Afghanistan. Those funds are enabling our 
adversaries in Afghanistan to acquire sophisticated weapons, to 
do many other things.
    What do you understand is the current role of the NATO 
forces? Do your responsibilities--in any way allow you to 
inject your thinking into this problem? Because we have 
Americans at increasing risk from this ever-increasing flow of 
dollars back from the sale of those narcotics. I mean, we're 
talking about multimillions of dollars of cash.
    General Mattis. Yes, sir. Senator, I don't disagree with a 
single word that you just said. I think you've summed up the 
problem. I believe that the efforts of NATO and the U.S. forces 
to create a stronger central government that creates control 
over the country are on target. This is one of the 
manifestations of a lack of governmental control. This is why 
we need President Karzai's government to be strengthened, not 
just with military purposes--not just for military purposes. We 
need a dramatic leap in our interagency and our international 
partners' efforts to reduce drug demand, to come up with 
substitute crops and the kind of supporting infrastructure that 
allows those crops to become viable, not simply a good program 
that makes us feel good, but actually has an alternative for 
those farmers, in light of how much money they're being paid 
right now.
    But I think that the preparation of the NATO forces, which 
JFCOM and Allied Command-Transformation work together on, can 
help address this. But it's a larger problem than just the 
military preparation of the troops. I'll work as much as I can, 
if I am confirmed, to broaden the aperture on this.
    Senator Warner. Within the scope of your authority here--
and it seems to me a fairly broad authority--I would hope you 
would inject your thinking because you've had a lot of 
experience, in your career, with insurgency.
    General Mattis. Yes, sir.
    Senator Warner. How many tours do you have to Iraq?
    General Mattis. Depending on how you're counting, sir, too 
many. [Laughter.]
    Senator Warner. Well, quite a few.
    General Mattis. Yes, sir.
    Senator Warner. You're familiar with this problem.
    General Mattis. I've been in Afghanistan, sir.
    Senator Warner. You have been in Afghanistan.
    General Mattis. Yes, sir.
    Senator Warner. You're extraordinarily well-experienced.
    Lastly, Mr. Chairman, in Afghanistan, is the question of 
the national caveats. To those who may be following this 
hearing, I would like to explain them--that when a NATO country 
allocates some of its troops to a force deployed out of the 
NATO area--the Balkans was one campaign, but this is the first 
real, significant deployment of NATO forces in a combat role, 
beyond the original parameters of the NATO forces in their 
countries. They say, ``Our troops can be used only for A, B, C, 
and D, and not E, F, G.'' As a consequence, the U.S. forces, 
the British forces, the Canadian forces really don't have any 
limitations. The commanders of the forces can utilize them for 
any role in combat they deem appropriate. But the other forces 
cannot be used. Frankly, it comes down to--some of them are not 
exposed to the degree of risks that the U.S., British, and 
Canadian troops are exposed to. What are we going to do about 
that national caveat situation?
    General Mattis. Sir, if confirmed, I would first of all 
encourage that we all recognize the difficulty this makes for 
unity of effort. It's one thing if we aren't going to have 
unity of command--and you're aware of the command relationships 
there. But unity of effort on a battlefield is critical if 
we're to really make progress.
    My intent would be to work collaboratively with General 
Craddock and the Chiefs of Defense of NATO, and see how we can 
move this forward, while recognizing that nations have 
interests, and I know our own has interests, and we make 
certain caveats, ourselves--not ones that impact on battlefield 
efficiency in Afghanistan right now. But I think a certain 
amount of understanding of where they're coming from, but an 
aggressive search for common ground that will allow us to gain 
this unity of effort that we need there, so that we have the 
responsibilities and the demands placed, I think, equally 
across the alliance forces.
    Senator Warner. Thank you.
    General Mattis. Yes, sir.
    Senator Warner. Good luck, General.
    Senator Ben Nelson. Thank you all for being here today, and 
congratulations to your families for a job well done this 
morning, and to all of you.
    Senator Warner. Mr. Chairman, you mentioned a key word, 
``families.'' We've stressed that. I'd like to have each of you 
put into the record--I will not delay this hearing further--
some of the initiatives you're going to take with respect to 
the families of those under your command.
    [The information referred to follows:]

    Admiral Roughead. The Navy has multiple initiatives to further 
support the families of our sailors, these include:
Fleet and Family Support Programs
    With increased programmed funds in fiscal year 2008 and the 
outyears, the Navy has put greater emphasis on providing additional 
prevention, education, and counseling services to Navy families. 
Greater outreach to families is being accomplished through information 
and referral, educational, individual consultation and clinical 
counseling services at community centers, schools and in public-private 
venture housing areas. Revitalization of family employment readiness 
programs and services is also a focus for fiscal year 2008. In 
addition, services are tailored and staffed to better meet the needs of 
Navy families who have been disproportionately impacted by the global 
war on terror. For example, school liaison positions have been created 
to work with school districts and Navy families to ensure successful 
transition of Navy children from one school to another, and to ensure 
that the pressures facing military children are well understood by 
teachers and school officials. The Navy is providing brief, solution-
focused clinical counseling services to a greater number of family 
members, including children, in fiscal year 2008, and is providing home 
visitation services to new parents who need assistance.
Individual Augmentee (IA) and Family Support
    IA assignments are new for most sailors and their families. The 
Navy continues to work hard to ensure that deployment services and 
support are tailored and responsive to the unique needs of IA sailors 
and their families. To improve understanding of, and responsiveness to, 
the needs of sailors, families and Navy leadership, Navy has developed 
IA Sailor, Family, and Command Handbooks that are posted on the World 
Wide Web and are continually updated to provide basic information on IA 
deployment preparation, readiness, and reunion issues. An IA Family 
Connection Newsletter is distributed each month to IA families via Navy 
Fleet and Family Support Centers and Command Ombudsmen. Additionally, 
IA deployment readiness briefs are provided in various formats on a 
regular basis, as are IA Information Fairs and ``Family and Friends'' 
homecoming programs. To better reach IA families who do not live near a 
military installation but who have access to a computer, the Navy has 
initiated ``virtual'' IA Family Discussion Groups. In fiscal year 2008, 
Navy Fleet and Family Support Centers are committed to making telephone 
outreach contacts to all IA families. Information, referral and ongoing 
support to the family throughout the sailor's IA assignment are offered 
during these outreach contacts. To date, about half of family members 
contacted have asked for ongoing contact and support. Command Ombudsmen 
are also receiving training on the uniqueness of IA deployment, 
resources available to IA families, and indicators of possible combat 
or operational stress.
Child and Youth Programs
    Increased capability to support Navy family readiness in child and 
youth programs includes an expansion plan of 4,000 additional child 
care spaces utilizing various delivery systems (child development 
centers, child development homes, 24/7 center/home care). To assist 
parents and children with the challenges of frequent deployments, an 
additional 100,000 hours of respite child care will be provided for 
families of deployed servicemembers. In efforts to combat youth 
obesity, the Navy will implement a nationwide youth fitness initiative 
called ``FitFactor,'' as a means to increase youth interest and 
awareness in the importance of healthy choices in life.
Family Financial Readiness
    Financial fitness of sailors and their families is critical to 
mission readiness. The Navy's Personal Financial Management Program 
received national level recognition and was honored as the 2006 
Outstanding Education Program of the Year by the Association of 
Financial Counseling, Planning and Education. To ensure individual and 
family financial fitness, the Navy has increased the number of 
Accredited Financial Counselors available to work one-on-one with 
sailors and family members to develop realistic and achievable 
financial plans. Navy is also providing educational programs 
specifically tailored to family members and teens, and is partnering 
with on-base financial institutions, consumer awareness experts and 
industry leaders to assist with financial fitness initiatives.
Navy Family Ombudsmen Program
    A strong Command Ombudsman program helps ensure that families have 
information necessary to meet the challenges of the military lifestyle 
and that commanders have a better understanding of their families' 
welfare and readiness. Navy ombudsmen serve as a liaison between the 
command and families. In fiscal year 2007, the Navy undertook a number 
of initiatives to strengthen, revitalize, and improve its Ombudsman 
Program. These efforts, which are ongoing in fiscal year 2008, include 
establishing an Ombudsmen Registry to identify Command Ombudsmen and 
distribute timely information. In the event of a natural or manmade 
disaster, the Registry may also be used by higher authority to 
facilitate tracking and providing support to Navy families.
Personal and Family Preparedness
    In fiscal year 2008, the Navy has placed a major emphasis on 
personal and family preparedness. ``Operation Prepare'' is a 
comprehensive marketing initiative disseminated Navy-wide. With the 
theme, ``Be Informed, Have a Plan, Make a Kit,'' the initiative has 
yielded enhanced personal and family readiness. The Navy-wide emphasis 
on ``Operation Prepare'' has increased sailor and family awareness of 
what to do to prepare for and respond to a manmade or natural disaster.
                                 ______
                                 
    General Ward. High-quality, motivated people are the bedrock of our 
Nation's defense readiness and they remain so due to our steadfast 
commitment to their quality of life. For the U.S. Africa Command 
(AFRICOM), providing quality of life support and services to the 
command's servicemembers, civilians, and family members is a top 
priority. Whether forward deployed temporarily or permanently assigned 
on the continent, quality of life programs will be critical to the 
success of the command in two fundamental ways. First, they will help 
us attract and retain the best people--well-trained, motivated, and 
highly-skilled. Second, quality of life programs ensure our people and 
their families will be taken care of regardless of duty location. U.S. 
AFRICOM's approach to quality of life will be in line with overall DOD 
policy: holistic, but with special considerations given to the 
possibility that some of our persons may operate in very austere 
environments.
    Quality of life initiatives will require that we provide 
servicemembers, as well as those civilians who volunteer to come to 
AFRICOM and support the work we do, with a fair and adequate 
compensation system that recognizes the hardships associated with 
working in very remote and isolated locations. There is a high 
probability that some personnel will be located in areas without many 
of the typical support services found at major military installations 
in the United States.
    We will continue to advocate for adequate family support, since 
some of the command's personnel may need to be separated from their 
families for extended periods of time while deployed to the African 
continent. These areas include, but are not limited to: access to 
health care, similar to that available in the States or that meets or 
exceeds acceptable standards set by our medical experts; access to 
adequate housing; access to excellent education for families; and the 
availability of appropriate morale and welfare services. This support, 
at home station, deployed and at remote locations, is essential to 
provision of excellent quality of care for all of our personnel.
    In the interim, any personnel assigned to duties in African nations 
will likely be supported by agreements with individual embassies. We 
often negotiate these agreements with embassy staffs to support limited 
numbers of military personnel who work in foreign nations. There is a 
fee for this service arrangement. It is through this comprehensive 
vision and sufficient resourcing that we plan to provide an adequate 
quality of life for our most precious resource, our people.
    In conclusion, the AFRICOM is committed to providing a 
comprehensive package of services that support the challenges of not 
only the traditional military way of life, but also the unique 
challenges associated with standing up a portion of the command in an 
area of the world where issues associated with a lack of basic 
infrastructure, disease, tropical illnesses, and overall health are 
generally more prevalent than in most modern western societies. 
Ultimately, our goal is to make AFRICOM an assignment of choice, built 
on a top-quality, well-trained, highly-motivated, and appropriately 
supported work force of dedicated servicemembers, civilian employees, 
and their family members.
                                 ______
                                 
    General Mattis. Increased deployments associated with the global 
war on terrorism coupled with routine deployments for training and 
other global commitments have significantly increased the operating 
tempo of our Armed Forces. The frequency of deployments is difficult 
enough for our servicemembers, but is also extremely taxing and 
stressful on military families. Therefore, taking care of our families 
must be a top priority for commanders at every level. As the Joint 
Force trainer and Joint Force provider, one of my main goals will be to 
establish predictable and stable training and rotation cycles for 
deploying forces.
    To accomplish this task requires advance planning and early 
identification of force requirements. I will work with the Joint Staff, 
supported combatant commanders, and my Service component commanders to 
ensure early identification of future force requirements to support 
operations in Iraq, Afghanistan, and elsewhere. Knowing projected 
deployment dates well in advance will provide a measure of stability 
for servicemembers which will in turn reduce the emotional and mental 
stress on families. Additionally, the implementation of the Force 
Management Improvement Project coupled with the Defense Readiness 
Reporting System will help streamline the Request for Forces (RFF) 
process thus improving the predictability of force deployments.
    Another way of creating constancy for families is maximizing the 
efficiency of predeployment training. How much time a unit spends 
overseas is normally the focus when discussing the impact of 
deployments on families but a great deal of time is also spent away 
from home conducting predeployment training. Finding ways to reduce the 
amount of time spent away from home training is an excellent way of 
improving the quality of life for servicemembers and their families. As 
the Joint Force Trainer, I will constantly be looking for ways to 
improve and maximize the efficiency of predeployment training in order 
to minimize the impact on families. One of my first tasks as Commander, 
U.S. Joint Forces Command, will be to review the Unified Endeavor 
Mission Rehearsal Exercise Program to see where we might be able to 
streamline the program while still providing high quality training to 
deploying units. Leveraging existing Joint training capabilities such 
as the Joint National Training Capability and Distant Learning programs 
are excellent ways of reducing the amount of time spent away from home 
conducting predeployment training. Synchronizing and integrating 
predeployment training events with deployment schedules is an extremely 
important aspect of improving the quality of life for our military 
families.
    Lastly, the Individual Augmentation process is another area that 
needs to be reviewed. Currently, there are 7,000 Individual Augmentees 
filling billets in over sixty Joint Task Force Headquarters worldwide. 
Often, Individual Augmentee requirements are not well-defined or known 
in advance. Even if the requirement is clearly identified or known in 
advance, it is often difficult to match a person with the capabilities 
and qualifications being requested. Consequently, personnel are often 
notified on short notice that they must fill Individual Augmentee 
billet which puts them and their families under unnecessary stress. In 
my view, we must do a better job of integrating the Individual 
Augmentation process with the RFF process to maximize the amount of 
time an Individual Augmentee has to prepare for deployment. One of my 
main objectives as Commander, U.S. Joint Forces Command, will be to 
institutionalize an Individual Augmentation process that serves both 
the needs of the supported combatant commanders and reduces the 
turbulence inflicted on our servicemembers and their families.
    Finally, creating a predictable and stable environment for our 
military families is absolutely essential in maintaining the viability 
of our All-Volunteer Force. Without a measure of predictability and 
stability in their lives young Americans are less likely to join the 
military and existing servicemembers are less likely to reenlist. Our 
servicemembers and their families sacrifice a great deal to serve their 
country and it is incumbent on us to do everything in our power to 
provide them with a measure of steadiness when it comes to deployments. 
This can only be done through sound leadership and proper advance 
planning.
                                 ______
                                 
    General Chilton. Initiatives that center on the family will be a 
topic I carry forward in meetings and discussions with my functional, 
Service, and component commanders, as well as my headquarters staff. 
The focus will be on programs designed to recognize the contribution of 
family members which enable our active duty servicemembers to serve the 
Nation. The sacrifices made by spouses, and children in particular, 
will be reviewed as we continue to increase our emphasis in this area.

    Senator Warner. I think we have to always be in a forward-
looking mode, because the families of those in uniform are 
serving an ever-increasing and important role. How often have 
the witnesses come before this committee and told us that the 
determination of a serviceperson to continue his or her 
obligations and re-up, as we say in the old days, for the 
enlisted person, and for an officer to extend into the next 4 
or 5 years, his willingness or her willingness to serve. That 
decision is made around the family table.
    Senator Ben Nelson. We stand adjourned.
    [Whereupon, at 11:13 a.m., the committee adjourned.]

    [Prepared questions submitted to ADM Gary Roughead, USN, by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. Almost 2 decades have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. You have had an opportunity to observe 
the implementation and impact of those reforms, particularly in your 
joint assignments.
    Do you support full implementation of these defense reforms?
    Answer. Yes. I strongly support full implementation of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986. 
Since enactment, the act has increased cooperation among the Services 
resulting in a more capable, effective, and agile Joint force.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. These defense reforms have enhanced our Nation's 
warfighting capabilities; however, there is always room for process 
improvement. Specifically, improvements in the acquisition process are 
needed to ensure new systems are in full compliance with Joint 
interoperability requirements, and to enhance the coordination and 
interaction between those who define our requirements and those who 
acquire our systems.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I consider the most important aspect of these defense 
reforms to be the emphasis and commitment to joint warfighting and the 
resulting benefit we derive from our experiences in joint warfare. 
Operations directed by combatant commanders with forces from all the 
Services have produced greater net effect than independent service 
actions.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense (DOD).
    Do you agree with these goals?
    Answer. Yes.
    Question. Recently, there have been expressions of interest and 
testimony from senior military officers recommending modifications to 
Goldwater-Nichols.
    Do you believe that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. Goldwater-Nichols has served us well, but in the past 20 
years the security environment has changed significantly and a review 
is worthy of consideration. If confirmed, I will work closely with the 
Secretary of Defense (SECDEF) and Secretary of the Navy if I see need 
for specific improvement.
    Question. What do you understand the role of the Chief of Naval 
Operations (CNO) to be under the Goldwater-Nichols Act relative to the 
SECDEF, the Secretary of the Navy, the Chairman of the Joint Chiefs of 
Staff (JCS), the other members of the Joint Chiefs, and the combatant 
commanders?
    Answer. The CNO has significant interaction with these leaders. If 
confirmed, I will work for the SECDEF and the Secretary of the Navy, 
who will be my direct civilian superior. I will be responsible under 
the Secretary of the Navy for organizing, training, and equipping 
forces in support of the combatant commanders. I will also be 
responsible for the identification, validation, prioritization and 
justification of resource requirements for Navy acquisition programs. 
Along with the other Service Chiefs, I will be a member of the JCS 
tasked with the responsibility for actively reviewing and evaluating 
military matters and offering professional military advice to the 
President, National Security Council, and SECDEF.

                             RELATIONSHIPS

    Question. Section 5033 of title 10, U.S.C., discusses the 
responsibilities and authority of the CNS. Section 151 of title 10, 
U.S.C., discusses the composition and functions of the JCS, including 
the authority of the CNO, as a member of the JCS, to submit advice and 
opinions to the President, the National Security Council, or the 
SECDEF. Other sections of law and traditional practice, also establish 
important relationships outside the chain of command. Please describe 
your understanding of the relationship of the CNO to the following 
offices:
    Secretary of Defense.
    Answer. The SECDEF is the principal assistant to the President in 
all matters relating to the DOD. As a Service Chief and member of the 
JCS, the CNO is a military adviser to the SECDEF, particularly 
regarding matters of naval warfare, policy, and strategy.
    Question. Deputy Secretary of Defense.
    Answer. The Deputy SECDEF, on occasion, serves as acting Secretary 
in the absence of the Secretary. During these periods, the CNO's 
relationship with the Deputy Secretary will essentially be the same as 
with the Secretary. The Deputy Secretary is also responsible for the 
day-to-day operation of the DOD. If confirmed, I will endeavor to 
interact regularly with him and provide him with my best possible 
professional military advice and the same level of support as I would 
the Secretary.
    Question. The Under Secretaries of Defense.
    Answer. Under current DOD Directives, Under Secretaries of Defense 
coordinate and exchange information with DOD components, to include the 
Services, in the functional areas under their cognizance. If confirmed 
as CNO, I will respond and reciprocate. If confirmed, I will use this 
exchange of information as I communicate with the Chairman of the JCS 
and provide military advice to the SECDEF.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The CNO is a member of the JCS and, as such, works with and 
through the Chairman in the execution of duties. Along with the other 
Service Chiefs, I will be a member of the JCS tasked with the 
responsibility for actively reviewing and evaluating military matters 
and offering professional military advice to the President, National 
Security Council, and SECDEF.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. When functioning as the acting Chairman, the Vice 
Chairman's relationship with combatant commanders is that of the 
Chairman. Also, the Vice Chairman has the same rights and obligations 
as other members of the JCS. If confirmed, I would exchange views with 
the Vice Chairman on any defense matter considered by the JCS. The Vice 
Chairman also heads or has a key role on many boards that affect 
readiness and programs and, therefore, the preparedness of naval 
forces. If confirmed, I will establish a close relationship with the 
Vice Chairman on these critical issues.
    Question. The Secretary of the Navy.
    Answer. The CNO is responsible, under the Secretary of the Navy 
(SECNAV), for providing properly organized, trained, and equipped 
forces to support combatant commanders in the accomplishment of their 
missions. In addition, the CNO assists the Secretary of the Navy in the 
development of plans and recommendations for the operation of the 
Department of the Navy. The Navy enjoys a productive, collaborative 
environment within the Department, and if confirmed, I will work 
closely with the Secretary of the Navy.
    Question. The Under Secretary of the Navy.
    Answer. The Under Secretary of the Navy is the principal assistant 
to the Secretary of the Navy and is first in line of succession. The 
Under Secretary performs such duties, and exercises such powers, as the 
Secretary shall direct. If confirmed, I look forward to establishing a 
close relationship with the Under Secretary and to working with him to 
achieve the Secretary's goals.
    Question. The Assistant Secretaries of the Navy.
    Answer. The Assistant Secretaries of the Navy work with the Under 
Secretary to achieve the Secretary's goals. Like the Under Secretary, 
the Assistant Secretaries perform such duties, and exercises such 
powers, as the Secretary shall direct. If confirmed, I will work with 
the Assistant Secretaries to achieve the Secretary's goals.
    Question. The General Counsel of the Navy.
    Answer. The General Counsel of the Navy serves as legal advisor to 
the Department of the Navy and performs such functions as the Secretary 
of the Navy shall direct and as necessary to provide for the proper 
application of the law and effective delivery of legal services within 
the Department. If confirmed, I will work closely with the General 
Counsel to achieve the Secretary's goals.
    Question. The Judge Advocate General of the Navy.
    Answer. Under 10 U.S.C. Sec. 5148(d), the Judge Advocate General 
(JAG) of the Navy performs duties relating to any and all Department of 
Navy legal matters assigned to him by SECNAV. The JAG provides and 
supervises the provision of all legal advice and related services 
throughout the Department of the Navy, except for the advice and 
services provided by the General Counsel. It is important that the CNO 
receive independent legal advice from his senior uniformed judge 
advocates. If confirmed, I will work closely with the JAG and seek the 
JAG's legal advice.
    Question. The Commandant of the Marine Corps.
    Answer. A unique historical and operational relationship exists 
between the Navy and the Marine Corps. Many of our capabilities, 
programs, and personnel issues are inextricably linked. Our forces 
deploy together, and both must be ready on arrival. If confirmed as 
CNO, my relationship with the Commandant of the Marine Corps must be 
exceptionally close and I will be committed to making every facet of 
the Navy-Marine Corps team stronger.
    Question. The Chiefs of Staff of the Army and Air Force.
    Answer. Our Armed Forces must work together to recognize each 
other's strengths and to complement each other's capabilities. We must 
achieve and maintain synergy in warfare, training, and procurement to 
ensure each Service contributes optimally to Joint and combined 
operations. If confirmed, I am committed to working with my 
counterparts to enhance Joint interoperability and other aspects of the 
joint relationship in order to improve the warfighting capabilities of 
the United States.
    Question. The combatant commanders.
    Answer. The CNO's responsibility as a Service Chief is to provide 
properly organized, trained, and equipped forces to the combatant 
commanders to accomplish their military missions. If confirmed, I will 
work to foster close working relationships with the unified and 
specified combatant commanders.

                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges confronting 
the next CNO?
    Answer. The major focus of the next CNO must be to maintain current 
readiness and provide ready, capable forces; to define and deliver a 
relevant naval force for the future; and to ensure we recruit and 
retain those military and civilian personnel who seek to serve our 
country in the U.S. Navy. The preeminent challenge is balancing these 
three priorities in a fiscally constrained environment. Each focus area 
has its own challenges and opportunities.
    Maintaining Current Readiness. We are continually generating forces 
for the current fight and are deploying and employing our Navy much 
differently than in years past. We are simultaneously providing ready 
naval forces and personnel for Joint Force Commanders, sustaining 
forward presence and fulfilling commitments to allies in other vital 
regions, and responding to increasing demands in regions where we have 
not routinely operated, specifically South America and Africa. Being 
ready and responsive to carrying out a range of missions demands new 
approaches to delivering operational availability at best cost.
    Future Force. The means and methods of conflict and the security 
environment undergo constant change. Technology and asymmetric 
approaches are advancing rapidly. Our view of the future must address 
strategic trends and not be captured by the status quo. Our ships, 
submarines, aircraft, weapons, and networks must outpace potential 
adversaries. The cost of future systems and the ability of our overall 
acquisition processes to pace the speed of technological innovation is 
increasingly challenging our ability to deliver a balanced force.
    People. Our people are the foundation for all we do. The 
demographics, attitudes, and expectations of our population are 
changing and we must understand that dynamic. We are seeing that 
influencers (parents, counselors, friends) are having more of an impact 
on individual choices. Competition for talent in today's professional 
marketplace is intense. Attracting and retaining a diverse, high-
quality Total Force of military and civilians must remain our highest 
priority.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I will remain committed to warfighting 
readiness to ensure we remain agile, capable, and ready forward. I will 
continue to employ our Fleet Response Plan to increase operational 
availability of our traditional forces, and I will pay particular 
attention to individual readiness as we continue to support the current 
fight.
    There is no question that our acquisition programs will be under 
great pressure; therefore, to build the right forces for tomorrow we 
must be exacting in developing requirements, mindful of the factors 
that increase cost and committed to working with the acquisition 
community and our Joint partners in doing all we can to be effective, 
efficient, and timely in delivering future capability. Also, I will 
continue to strengthen initiatives of the Navy Enterprise to identify 
efficiencies and produce maximum cost savings Navy-wide, while 
continuing to ensure our Navy remains strong, effective, and relevant.
    We must size our force and implement policies so the young men and 
women of our country see opportunity and achieve personal and 
professional fulfillment by serving in our Navy. The competition for 
people necessitates that we put in place policies that advantage us and 
address the many rewards of service. We must be unwavering in our 
obligation to take care of sailors and their families who suffer the 
effects of combat.

                         MOST SERIOUS PROBLEMS

    Question. What do you consider to be the most serious problems in 
the execution of the functions of the CNO?
    Answer. In my view, the most serious problems the next CNO will 
face in executing his duties are: (1) properly balancing current 
resources allocated to sustain, train, and equip the Navy; (2) 
obtaining the necessary resources to build and man the future Navy; and 
(3) ensuring continuity among requirements, resourcing, and acquisition 
in the existing planning, programming, budgeting, and execution 
process.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will work closely with my Navy senior 
leadership team, my fellow Service Chiefs, the Chairman of the JCS, the 
Secretary of the Navy, and through him, the SECDEF and Congress to 
develop balanced, fiscally-responsible approaches to addressing and 
solving these problems.

                             QUALIFICATIONS

    Question. Section 5033 of title 10, U.S.C., requires the CNO to 
have had significant experience in joint duty assignments, including at 
least one full tour of duty in a joint duty assignment as a flag 
officer.
    What background and experience do you have that you believe 
qualifies you for this position?
    Answer. I believe that the breadth and depth of my experience as a 
naval officer and joint warfighter qualifies me for this position. I 
have had the privilege of six commands in the Pacific and Atlantic, 
which form a solid operational foundation. I have served in several 
Joint flag positions: Commander, Second Fleet and Commander, NATO 
Striking Fleet; Deputy Commander, U.S. Pacific Command; Commander, U.S. 
Pacific Fleet and Commander, Joint Task Force 519. I am serving 
currently as Commander, U.S. Fleet Forces Command responsible for the 
Navy's Global Force Management and support to three combatant 
commanders. Further, I have completed four assignments at Navy 
headquarters, including a tour as the Navy's Chief of Legislative 
Affairs. My tour as Commandant of Midshipmen, U.S. Naval Academy 
provided insight into naval education and training and the development 
of officers as leaders in our Navy and Marine Corps.

            UNITED NATIONS CONVENTION ON THE LAW OF THE SEA

    Question. In May of this year, President Bush issued a statement 
urging the Senate to act favorably on U.S. accession to the Law of the 
Sea Convention. Officials of the DOD, including the previous CNO, have 
advocated for accession to the Convention.
    Do you support United States accession to the United Nations 
Convention on the Law of the Sea?
    Answer. Yes.
    Question. How would you respond to critics of the Convention who 
assert that accession is not in the national security interests of the 
United States?
    Answer. I believe that accession to the Law of the Sea Convention 
is in our national security interests. The basic tenets of the 
Convention are clear and beneficial to the Navy. From the right of 
unimpeded transit passage through straits used for international 
navigation and reaffirming the sovereign immunity of our warships, to 
providing a framework for countering excessive claims of other states 
and preserving the right to conduct military activities in exclusive 
economic zones, the Convention provides the stable, predictable, and 
recognized legal regime we need to conduct our operations today and in 
the future.
    U.S. military forces must be able to operate freely on, under, and 
above the world's oceans. That freedom is critical to our national 
security interests, the military in general, and the Navy in 
particular. The Law of the Sea Convention codifies fundamental benefits 
important to our operating forces as they train, transit, and fight. 
Amendments made to the convention in the 1990s addressed many of the 
concerns that opponents have expressed. Also, joining the convention 
will not subject the U.S. Navy to the jurisdiction of international 
courts, nor will it adversely affect the President's Proliferation 
Security Initiative (PSI) or United States intelligence activities.
    The convention is the bedrock legal instrument underpinning public 
order for the world's oceans. By joining the convention, we can best 
assert our leadership in oceans law and policy, and in conjunction with 
our Freedom of Navigation program, we can best protect the navigational 
rights and freedoms that are of such critical importance to our 
Nation's security and economic prosperity.

                             TRANSFORMATION

    Question. If confirmed, you would play an important role in the 
process of transforming the Navy to meet new and emerging threats.
    What are your goals regarding Navy transformation?
    Answer. Transformation is never complete; it is a constant process 
and attitude. Our new Maritime Strategy and our ongoing transformation 
efforts, within the framework of Seapower 21, guide the Navy's future 
direction. I believe we are already making great strides in developing 
the capabilities we will need in coming years. Areas of particular 
interest include cyberspace, unmanned systems, and Maritime Domain 
Awareness. As we transform our warfighting models and concepts, we must 
correspondingly evolve our recruiting, training, and retention efforts. 
All require the highest degree of coordination with the other Services.

                          FLEET RESPONSE PLAN

    Question. The Fleet Response Plan has been implemented to provide a 
surge capability for ``presence with a purpose.'' In a report issued in 
November 2005, the Government Accountability Office found that the Navy 
had not fully tested and evaluated the Fleet Response Plan. In 
addition, there have been some reports indicating sailors' 
dissatisfaction with unpredictability in the new deployment schedules.
    What strengths and weaknesses have you perceived to date with the 
implementation of the Fleet Response Plan?
    Answer. The Fleet Response Plan (FRP) has many strengths. The FRP 
enables the Navy to increase operational availability and generate more 
forward presence on short notice than was possible in the past. It 
allows the Navy to respond to global events more robustly with a 
disciplined, deliberate process to ensure continuous availability of 
trained, ready Navy forces. The FRP allows the Navy to identify clearly 
the surge forces ready to respond to Maritime Security, Theater 
Security Cooperation, Homeland Defense, Major Combat Operations, or 
Humanitarian Assistance and Disaster Relief operations.
    That said, the FRP rollout strategy did not initially provide a 
timely, detailed explanation and evaluation of key management metrics 
to our sailors. Accordingly, in August 2006, the CNO issued more 
definitive FRP guidance. In my current capacity, I expanded that 
guidance and I remain focused on effectively communicating the key 
elements of the FRP throughout the Navy. I am confident that the FRP is 
both viable and appropriate to meet the challenges today and tomorrow.
    Question. After a FRP surge, do you feel there is sufficient ship 
maintenance and repair capability in the public and private sectors to 
quickly reconstitute the force?
    Answer. Yes, there is sufficient maintenance and repair capability 
to fulfill the Navy's maintenance and repair requirements for 
reconstituting the force after a surge. After the initial surge for 
Operation Iraqi Freedom, and enabled by funding from Congress, the 
public and private sector demonstrated ample capacity for ship repair.
    Question. Would that assessment change if the Navy were confronted 
with several back-to-back surge demands?
    Answer. No, the assessment would not change as long as the overall 
FRP cycle lengths did not change dramatically and severe damage was not 
incurred by a significant number of ships.

                         ACQUISITION MANAGEMENT

    Question. Do you see a need for any change in the role of the 
Office of the CNO in the requirements determination, resource 
allocation, or acquisition management processes of the Department of 
the Navy?
    Answer. From my perspective, the role of the CNO in the 
requirements determination and resource allocation process is clear and 
appropriate. While the current cooperation among the CNO and 
acquisition officials is good, it should not be personality dependent. 
Service Chiefs should have a more formal role in acquisition management 
to ensure continuity among the requirements, resourcing and acquisition 
processes.
    Question. Do you see a need for any change in the structure or 
functions of the Joint Requirements Oversight Council (JROC) or the 
role played by the CNO and the Vice CNO in the JROC?
    Answer. I do not. I have not yet been involved in the JROC process 
but I look forward to participating. If confirmed, and after I have 
participated in the process, I will recommend changes as appropriate.

                        RECAPITALIZING THE FLEET

    Question. Despite the fact that Navy leadership has determined that 
it needs to have a 313-ship fleet to meet the maritime requirements of 
the National Military Strategy, it is currently operating with 277 
battle force ships. The Congressional Budget Office (CBO) has concluded 
that the Navy has underestimated the costs for building the 313-ship 
fleet by approximately 30 percent. Additionally, the Navy has 
acknowledged an approaching strike-fighter gap which may range from 50 
to 220 aircraft (the range depending on the procurement rate for Joint 
Strike Fighter aircraft and the service's ability to extend the service 
life for F/A-18 C/D and E/F aircraft).
    Do you agree with the CBO's assessment that there is significant 
cost risk associated with the Navy's shipbuilding plan?
    Answer. Estimating and controlling costs associated with far-term 
warfighting requirements are always challenging. As cost estimates are 
refined, the Navy may need to make adjustments to these important 
programs.
    Question. What actions do you believe are necessary to execute the 
Navy's shipbuilding plan within the Navy's budget estimates?
    Answer. The Navy's shipbuilding plan recognizes the need for 
exacting requirements and cost control methods, which can only be 
achieved in partnership with industry. The Navy continues to evaluate 
each ship class and identify cost reduction opportunities while 
balancing warfighting requirements, costs, and industrial base 
realities.
    The Navy is committed to stable out-year procurement that industry 
can use to anticipate workload. This allows industry to commit 
resources, create efficiencies, and decrease the end-cost of Navy 
ships. The Navy plans greater use of contract incentives to contribute 
to real cost containment in future shipbuilding plans. In addition, the 
Navy plans to pursue other areas for improvement in the acquisition 
workforce and organization to strengthen the foundations of the Navy's 
shipbuilding efforts. As we build the future Fleet, discipline will be 
required of all stakeholders to ensure success of the plan.
    Question. How would you characterize the risks to mission 
performance posed by the current shortfall in battle force ships and 
the growing shortfall in tactical aircraft?
    Answer. While the current risk is manageable in the near term, the 
Navy's 313-ship force is needed to meet warfighting demands in 2020. 
These demands include Conventional Campaigns Major Combat Operations 
(MCOs), war on terror/irregular warfare, and homeland defense.
    The Navy's strike-fighter shortfall will not manifest itself until 
the 2016 timeframe and is not impacting the Navy's ability to meet 
current combatant commander requirements.
    Question. What adjustments to the respective programs are necessary 
and appropriate to reduce that operational risk?
    Answer. To achieve Navy's desired capability and capacity and to 
minimize operational risk, we are reducing types and models of ships, 
maximizing reuse of ship designs and components, and employing a 
business model that encourages the use of open architecture and mission 
systems modularity.
    Similarly, our aviation plan balances aviation capabilities through 
cost-wise investments in recapitalization, sustainment, and 
modernization programs. Future Navy strike-fighter shortfalls will be 
mitigated through inventory optimization and possible additional 
procurement in POM-10.
    In all areas, we will continue to work closely with our partners in 
industry to control requirements and costs, and provide the industrial 
base the stability it needs to become more productive.
    Question. What further adjustments would you consider if the Navy's 
program comes under further pressure due to cost growth?
    Answer. In the face of the rising cost of naval ships and aviation 
procurements, the Navy has increased its efforts to reduce costs, 
improve its requirements estimation capability, and seek alternative, 
lower cost solutions. Absent that, top-line relief may be required.

             ALTERNATIVE FINANCING METHODS FOR SHIPBUILDING

    Question. Navy leaders have testified that alternative financing 
methods must be found for shipbuilding.
    What are your views and recommendations on the benefits and 
feasibility of alternative financing methods, such as incremental 
funding and advance appropriations?
    Answer. It is the Navy's policy to fully fund the cost of 
shipbuilding programs in the year of contract award. However, there are 
instances when alternative financing methods for ships should be used, 
such as advance procurement and incremental funding for large capital 
ships. It is advantageous to begin detail design in advance procurement 
rather than in the year of full funding to allow maturation of the 
design before construction begins. Advance procurement can lead to 
construction efficiencies and less rework due to fewer design changes. 
These financing methods must be used judiciously to preserve budget 
discipline.
    Question. What is your assessment of the long-term impact of such 
alternative financing methods on the availability of funds for 
shipbuilding?
    Answer. Alternative financing methods allow the Navy to maintain 
the shipbuilding industrial base through more efficient management of 
shipbuilding and conservation, Navy total obligational authority, 
provide greater flexibility in executing scarce resources, and help 
avoid individual-year funding spikes. Whenever possible, the Navy 
remains committed to following the full-funding policy.

                     ATTACK SUBMARINE FORCE LEVELS

    Question. The Navy's most recent statement of requirements for 
attack submarine force levels was 48 attack submarines. However, the 
Navy projects that the number of attack submarines will fall as low as 
40 boats and remain below the 48-boat requirement for more than a 
decade. The Navy is now claiming that it will be able to mitigate this 
shortage using three techniques: (1) building the new Virginia class 
submarines faster by reducing the time between the start of 
construction to delivery from the current level of 86 months for the 
last boat to deliver to a level of 60 months; (2) extending the life of 
some boats currently in the fleet from 3 to 24 months; and (3) 
increasing the length of deployments. By using a combination of these 
measures, the Navy claims that it will be able to maintain no less than 
42 boats in the force and will be able to maintain the current level of 
commitments to the combatant commanders (roughly 10 boats continuously 
on deployment).
    What is your assessment of whether the three techniques listed 
above will yield a number of deployed attack submarines sufficient to 
meet the requirements of the combatant commanders and other 
intelligence, surveillance, and reconnaissance needs?
    Answer. The Navy has formulated options that can mitigate some of 
the risk caused by having less than 48 attack submarines (SSNs) from 
2020 through 2033. These options include reducing submarine build-time, 
extending the hull life of selected submarines, and increasing the 
length of some submarine deployments. These measures would enable the 
Navy to maintain no less than 44 SSNs, which would provide about 10 
forward deployed ``SSN years'' annually.
    Despite the fact that attack submarine force levels will be less 
than the required 48 SSNs from 2020 to 2033, the Navy should be able to 
meet the combatant commanders' critical forward presence requests and 
maintain a warfighting surge capability with acceptable risk.

   NAVY/MARINE CORPS INTRANET AND NEXT GENERATION ENTERPRISE NETWORK 
                                PROGRAM

    Question. What is your assessment of the status of the Navy Marine 
Corps Intranet (NMCI) program and the ability of that program to meet 
the Department of the Navy's information technology needs? I have 
recently served in three major headquarters that used NMCI. I believe 
NMCI has decidedly improved the Navy's cyber-security posture. Are you 
satisfied with the efforts to date to establish the Next Generation 
Enterprise Network (NGEN) program?
    Answer. The actions taken to date are appropriate for a program of 
such importance to the Navy and Marine Corps. A requirements Task Force 
has been established under the direction of the Department of the Navy 
Chief Information Officer (DON CIO), OPNAV N6 and Headquarters Marine 
Corps Command, Control, Communications and Computers (HQMC C4). The 
Task Force has drafted an initial requirements document that will be 
reviewed by Fleet Commanders and stakeholders. The acquisition for the 
follow-on to NMCI will commence after requirements are approved.
    Question. What significant lessons learned do you think that the 
Navy should draw from NMCI as it scopes and structures the NGEN 
program?
    Answer. We have learned many lessons from the implementation and 
operation of NMCI. First and foremost, IT is critical to both our 
warfighting and business processes. In addition, networks require 
alignment of enterprise resources and requirements, not just IT 
resources. Systems must have rapidly adaptable architectures, improved 
interoperability, options for increased collaboration, and increased 
remote accessibility. Our networks must be secure, yet our information 
assurance processes should not be onerous to users. The ability to 
incorporate new technology through the life of the contract with 
appropriate technical refresh must be assured.

                     SCIENCE AND TECHNOLOGY PROGRAM

    Question. The budget request for defense Science and Technology 
(S&T) still falls short of the Defense Science Board's recommended goal 
of dedicating 3 percent of the total defense budget to S&T. In 
particular, the Navy S&T program, especially the investment in long-
term, innovative work which has been so successful in confronting 
emerging threats, has declined significantly since the fiscal year 2006 
request.
    If confirmed, what metrics would you use to assess whether the Navy 
is investing adequately in S&T programs?
    Answer. There are three key components to an effective S&T program: 
a strong investment in basic and early applied research to build the 
scientific foundation for future technologies; an emphasis on key 
``game changing'' initiatives that provide technological advantage to 
the Navy and Marine Corps warfighter; and a critical focus on 
transitioning S&T programs to the acquisition community and the fleet.
    The metrics, therefore, are the balance of investment across these 
three components, the rate of transition of deployable S&T products, 
and the success of S&T products in precluding technological surprise by 
potential adversaries.
    Question. How would you assess the value and appropriate investment 
level for basic research programs?
    Answer. I believe that a strong investment in basic research 
programs is necessary to ensure we can maintain our advantages into the 
future. In my recent assignments, I have not dealt with investment 
decisions for basic research programs. If confirmed, I will assess our 
investment levels to ensure we derive the needed benefit from our S&T 
programs.

                          TECHNICAL WORKFORCE

    Question. A significant challenge facing the Navy today is an 
impending shortage of high quality scientific and engineering talent to 
work at Navy laboratories and technical centers.
    In your view, what are the pros and cons of having Active-Duty Navy 
personnel trained and working as scientists and engineers within the 
Navy research and acquisition system?
    Answer. There is significant advantage in having current 
warfighting experience within the research and acquisition process for 
future naval systems. The demands on Navy officers to meet the required 
expertise in their Navy warfare areas, and our growing need to develop 
officers with the requisite joint skills, may make this arrangement 
very challenging. If confirmed, I will continue efforts to identify 
specific needs and provide opportunities for select personnel to work 
in Navy labs and technical centers.

                       TEST AND EVALUATION ISSUES

    Question. What do you see as the role of the developmental and 
operational test and evaluation communities with respect to rapid 
acquisition, spiral acquisition, and other evolutionary acquisition 
processes?
    Answer. Developmental and operational test and evaluation 
communities are critical to reducing development risk and to providing 
Navy leadership the performance information needed to make good 
acquisition, fielding, and deployment decisions.
    Question. Are you satisfied with the Navy's test and evaluation 
capabilities? In which areas, if any, do you feel the Navy should be 
developing new test and evaluation capabilities?
    Answer. I am satisfied with the Navy's test and evaluation 
capabilities. However, our test and evaluation organization and 
processes must not be outpaced by the speed of technological advance.

                    MILITARY-TO-CIVILIAN CONVERSIONS

    Question. The Services have been engaged in a multiyear effort to 
eliminate thousands of military billets and replace them with civilian 
employees or contractor personnel. The Navy has been the most 
aggressive service in targeting health profession billets for military-
to-civilian conversions.
    If confirmed, how would you anticipate using military-to-civilian 
conversions to shape the future force of the Navy.
    Answer. The Navy continually reviews military billets to determine 
which billets require the unique skills of a sailor and which billets 
can best be filled as effectively, and at lower cost, by a civilian or 
by private industry.
    The results of these analyses will be used to ensure that sailors 
continue to have viable and rewarding career paths, and that we 
continue to support the Fleet with an appropriate mix of civilian and 
uniformed professionals.
    If confirmed, I will continue these efforts.
    Question. If confirmed, what metrics would you establish to measure 
the effectiveness of this management tool, and how would you determine 
if and when DOD civilian employees and private contractors could 
perform work in a more efficient or cost-effective manner?
    Answer. The effectiveness of the Navy's military-to-civilian 
conversion efforts must ultimately be measured by the degree to which 
they meet the following criteria: maintaining or improving Fleet 
readiness; the collective capability and competence of our Total Force; 
and overall cost savings.
    Question. How would you measure the impact of such conversions on 
readiness?
    Answer. Warfighting capability and readiness will be assessed using 
existing metrics and methods of assessment applied across the Fleet by 
the operational commander.
    Question. If confirmed, how would you assess the quality and supply 
of civilian physicians, dentists, and nurses to replace military 
personnel, and their willingness to serve in the Federal civilian 
workforce?
    Answer. If confirmed, my measures would be the quality of care 
provided to our sailors and families; whether those health 
professionals are meeting standards for training, certification, and 
licensure; and our recruiting and retention statistics on the civilian 
personnel that work in our medical system.

                       BALLISTIC MISSILE DEFENSE

    Question. The Navy will play an important role in defending the 
Nation against the threat of long range ballistic missile attack and in 
defending allies, friends, and deployed forces against theater 
ballistic missile threats.
    Do you view ballistic missile defense as a core Navy mission?
    Answer. Yes, I believe the Navy's ability to provide ballistic 
missile defense will be increasingly important to Joint warfighting now 
and in the future.
    Question. What plans does the Navy have for testing the Aegis 
Ballistic Missile Defense System?
    Answer. The Missile Defense Agency (MDA) is currently charged with 
testing of the Aegis Ballistic Missile Defense System (ABMD) for the 
Defense Department. Under this construct, the Navy will continue 
testing the Aegis SM-3 missile defense capability under the current 
agreement with MDA, providing full-time commitment of an Aegis cruiser 
to the Testing and Evaluation (T&E) role. Additionally, the Navy plans 
to modify other Aegis ships to conduct MDA missions when required.
    Question. Are you satisfied with the current rate of production for 
the SM-3?
    Answer. Yes; however, I believe the current rate of production is 
the minimum prudent rate.
    Question. When will the Navy, vice the Missile Defense Agency, 
begin acquisition of SM-3 missiles?
    Answer. There is no approved plan for the Navy to begin acquisition 
of SM-3 missiles.

                           NAVY END STRENGTH

    Question. The department's proposed budget for fiscal year 2008 
includes an Active-Duty end strength of 328,400, which include a 
reduction of 12,300 sailors. The end strength requested for the Navy 
Reserve is 67,800, which includes a reduction of 3,500 sailors.
    Based on the manpower demands needed to fight the global war on 
terrorism, including significant Active-Duty increases for the Army and 
Marine Corps, do you think that these reductions in personnel in the 
Navy continue to be warranted?
    Answer. The Navy has been able to capitalize on efficiencies to 
accomplish the manpower reductions to date while meeting operational 
demands. We are quickly approaching the limits of those efficiencies 
and the number of manpower reductions should begin to level out.
    I am confident that the Navy has thoroughly analyzed current and 
future manpower requirements in developing its manpower force 
structure. The reductions we have taken to date have been made possible 
by integrating a Total Force manpower solution, leveraging technology 
on new platforms, reducing manpower intensive platforms, and finding 
efficiencies in training and infrastructure including identifying work 
that is no longer required and applying civilian substitutions to non-
military essential work.
    Question. How do the proposed cuts in end strength take into 
account the support requirements associated with the planned increases 
in Marine Corps end strength?
    Answer. Navy end strength includes increases to the Fleet Marine 
Force that provides direct support for the new USMC operational unit 
growth. In addition, resources were added to the Navy portion of the 
Defense Health Program to provide medical benefits to the increased 
number of Marines and their families.
    Question. Do you view the additional 698 Active-Duty personnel 
added by the House in H.R. 1585 as necessary to ensure Navy medical 
personnel are available in adequate numbers to support Active and 
Reserve component personnel, retirees, and their family members?
    Answer. The health care mission to support military personnel, 
retirees, and their family members can be fully met without the 
additional 698 Active-Duty medical personnel proposed by H.R. 1585. The 
additional 698 end strength would restore 209 military end strength 
previously identified as military-to-civilian conversions. The 
restoration of the 209 military end strength is not required to support 
either the operational or health benefit mission of Navy Medicine. This 
end strength has previously been identified as ``non-military'' 
essential and funding has been provided to hire the necessary civilian 
personnel to ensure the health benefit mission is met.
    The remaining 489 positions that H.R. 1585 addresses were 
divestitures due to an overall Active-Duty reduction to Navy personnel. 
Consequently, the health benefit mission to Active-Duty Forces has 
decreased and can be met with current personnel levels. The reduction 
of 489 positions did not impact any operational mission requirements.

                              NAVY RESERVE

    Question. What is your vision for the roles and missions of the 
Navy Reserve, and, if confirmed, what objectives would you seek to 
achieve with respect to the Navy Reserve's organization, end strength, 
and force structure?
    Answer. As demonstrated through force generation, deployment and 
redeployment, Reserve component forces meet two significant needs of 
our Navy: (1) they provide capability and capacity in support of Major 
Combat Operations; and (2) they provide operational augmentation to 
meet routine military mission requirements. As such, we must maintain 
the role of the Reserve component as our Strategic Baseline, and we 
should capitalize on the ability of the Reserve component to provide 
Operational Support in a predictable and periodic manner.
    To best employ our Reserve component, we must align 
organizationally and fiscally to realize the full value of the Reserve 
component that can meet Operational Support missions.
    The optimal size of the Navy Reserve is a function of capacity and 
capabilities in the Active Force. We must ensure that the right 
capabilities reside in the appropriate components and that components 
are fully complementary. We must periodically review and validate 
Reserve component capabilities in alignment with our working Active/
Reserve Integration (ARI) model. We must then recruit and retain 
individuals with the required skills, in appropriate numbers, to 
support Navy strategies and Operational Support requirements.

                DEFENSE OFFICER PERSONNEL MANAGEMENT ACT

    Question. The Navy has requested authorization for additional 
Active-Duty officers in excess of Defense Officer Personnel Management 
Act (DOPMA) limits in the grades of lieutenant commander, commander, 
and captain even as significant reductions in end strength are being 
implemented.
    What is the rationale for increasing the number of Navy control 
grade officers, and do you anticipate that additional increases will be 
required in the future?
    Answer. Navy needs a flexible tool that allows rapid adjustments as 
requirements change. While aggregate Navy end strength and total 
officer end strength continue to decline, the need for more senior and 
experienced officers, as a percent of the officer corps, continues to 
escalate. The current DOPMA tables worked well for a fleet with large 
ships and large crews and predominantly multi-seat aircraft. But ships 
with smaller crews and more single seat aircraft result in a need for 
fewer junior officers, as a percentage, in our operational units. At 
the same time, Joint education and billet requirements (Joint and non-
Joint) are increasing the demand for DOPMA-controlled officers.
    The Navy has been operating at or near DOPMA limits for several 
years but at the cost of suppressing the grade requirement of over 500 
billets. Detailing to the true requirement of some billets and meeting 
individual augmentee demands has created an effective shortage of 
DOPMA-controlled officers. A solution to this shortage is the requested 
DOPMA relief that would allow promotion to the true demand. 
Additionally, the Chief of Naval Personnel is evaluating community 
management practices, officer force shaping policies, and special and 
incentive pays. These practices will better align Navy control grade 
officer strength with today's operational trends while increasing 
retention of officers reaching critical career decision points. The 
DOPMA relief requested is adequate to cover current needs and provides 
headroom to accommodate anticipated future growth.
    Question. What changes to DOPMA or other statutory provisions 
affecting Navy officer personnel management (including flag officers) 
are needed or, at a minimum, should be considered?
    Answer. I am grateful that both the Senate and House have included, 
in their respective versions of the National Defense Authorization Bill 
for Fiscal Year 2008, our request for a 5 percent across-the-board 
increase in DOPMA control grades. Enactment of this provision will 
allow Navy to gradually ease suppression of over 500 control grade 
billets, thereby enhancing readiness as we begin filling those billets 
with the officers possessing the right skills and experience required 
by those billets. It also provides modest additional headspace to 
permit us to address emerging control grade growth in support of joint, 
combatant commander, and other Service support requirements. Navy is 
continuing to explore options to retain more senior and experienced 
officers on Active-Duty.
    Question. What changes in law or policy with respect to numbers of 
senior enlisted personnel and their training, education, and 
utilization are needed in your judgment?
    Answer. I am pleased the Senate version of the National Defense 
Authorization Act for Fiscal Year 2008 includes a provision to increase 
the upper limit on the authorized daily average of Active-Duty enlisted 
members in pay grade E-9 from 1 to 1.25 percent of the enlisted force. 
This change would increase the maximum limit for personnel in the 
combined pay grades E-8 and E-9 to 3.75 percent and would allow the 
Navy to best meet our needs.
    This change addresses challenges that require a Total Force 
composed of senior, well-educated, motivated, and competent people who 
can adapt to the many demands of future missions. If enacted, it will 
allow us to meet our needs for managing our senior enlisted personnel.

                        JOINT OFFICER MANAGEMENT

    Question. What is your assessment of the impact on Active-Duty and 
Reserve officers of the newly implemented Joint Qualification System 
(JQS)? Do you think additional changes in law or regulation are needed?
    Answer. When the JQS is implemented on 1 October 2007, it will 
recognize the skills that support U.S. military response to national 
security threats, interagency coordination, combat operations, and 
humanitarian crises. It will also account for the intensity, 
environment, and duration or frequency of a joint experience. A key 
change will be the ability to award credit to Reserve component 
officers, previously not allowed.
    The JQS provides the opportunity to create and sustain the largest 
possible pool of fully-qualified and inherently joint leaders suitable 
for joint command and staff responsibilities in both the Active-Duty 
and Reserve components.
    The new JQS is being implemented in spirals over the next 3 fiscal 
years. Additional changes in law or regulation should only be 
considered after full implementation of JQS.
    Question. In your view, are the requirements associated with 
becoming a Joint Qualified Officer, including links to promotion to 
general and flag officer rank, consistent with the operational and 
professional demands of Navy line officers?
    Answer. We have made solid progress in policy initiatives linking 
career progression and joint management policies within Navy line 
officer career paths. Navy will plan for, prepare, and assign high 
quality line officers to joint billets. We are creating a pool of well 
qualified line officers who are fully qualified and inherently Joint 
leaders suitable for joint command and staff responsibilities. We are 
meeting our joint promotion objectives and we are filling our joint 
assignments and JPME seats with our best and our brightest. Navy 
acknowledges its responsibility to produce skilled joint leaders, 
tested in their Service's roles, missions and capabilities, and we are 
aggressively executing this responsibility.

                  SELECTIVE EARLY RETIREMENT AUTHORITY

    Question. The Navy has requested that Congress reinstate enhanced 
authority for selective early retirement.
    What changes in existing law, if any, regarding selective early 
retirement, are needed in your view?
    Answer. Although the Navy does not routinely use Selective Early 
Retirement (SER) as one of its primary force shaping tools, its 
employment may become necessary as the Navy transforms to meet future 
warfighting requirements. The extension of 10 U.S.C. 638a, Expanded 
SER, would allow the Navy to effectively and efficiently manage 
potential force structure changes without requiring the excessive 
accession reductions used in the 1990s to meet end strength controls. 
The Expanded SER would allow the Service Secretary to identify groups 
of officers to be considered for early retirement by year group or 
specialty within a competitive category, or any combination of those 
identifiers. Current SER authority does not provide for the 
identification of groups narrower than an entire competitive category 
to be considered. The expanded authority is an important force 
management tool for shaping the force to meet current and future 
requirements.

                           REBALANCING FORCES

    Question. In a memorandum dated July 9, 2003, the SECDEF directed 
action by the Services, the Joint Staff, and the Office of the SECDEF 
aimed at achieving better balance in the capabilities of the Active and 
Reserve components. The Secretary noted that the Department ``needs to 
promote judicious and prudent use of the Reserve components with force 
rebalancing initiatives that reduce strain through the efficient 
application of manpower and technological solutions based on a 
disciplined force requirements process.''
    What progress has the Navy made in achieving the Secretary's 
vision?
    Answer. We have effectively completed the initial rebalancing 
efforts called for in the SECDEF's memorandum. Between fiscal year 2003 
and fiscal year 2006 the Navy rebalanced over 33,000 spaces both within 
and between the Active and Reserve components. Within that time, the 
Navy created the Naval Expeditionary Combat Command (NECC), which is 
evolving into a relevant force for pre-conflict and reconstruction 
operations and is an important dimension in the war on terrorism. The 
ratio of the Active-Duty to Reserve personnel within NECC is nearly 1:1 
(Active component 48 percent; Reserve component 52 percent).
    Navy's robust planning, programming, and budgeting processes and 
the focused efforts of our Manpower, Personnel, Training and Education 
(MPTE) Enterprise allow us to continuously review the force, ensuring 
that we have the right mix of Active-Duty, Reserve, government civilian 
employees, and contractors to achieve mission success.
    Question. What do you consider to be the biggest continuing 
obstacles to achieving the goals that the SECDEF has set forth in his 
memorandum?
    Answer. The biggest obstacles to achieving the goals that the 
SECDEF has set forth are the changing security environment and the 
changing demographic from which we recruit. If confirmed, I am 
committed to taking those steps needed to ensure we have access to the 
full range of our Nation's talent.

           INDIVIDUAL AUGMENTEES AND ``IN LIEU OF'' MISSIONS

    Question. Secretary Winter, in his written testimony for the Navy 
Posture Hearing earlier this year, stated that there were, at that 
time, more than 8,000 sailors deployed in the Central Command (CENTCOM) 
Area of Operations as Individual Augmentees (IAs) and 4,500 sailors 
performing ``in lieu of'' missions.
    Will the Navy continue to be able to support these nontraditional 
assignments as it draws down its end strength?
    Answer. Navy will be able to support augmentation assignments under 
its current personnel inventory reduction plan. The majority of Navy 
billets that are in the most demand for augmentation assignments are 
not being eliminated. A careful review of specific active duty skill 
areas, such as Seabees and Intelligence personnel, resulted in measures 
to retain those specific billets and highly trained personnel. U.S. 
Fleet Forces is using a Fleet IA Capacity Model to help calculate a 
community's ability to source IA requirements. The Navy's intent is to 
deploy task-organized units rather than individual or small group IAs 
in the future.
    Question. What are the criteria being applied to determine which 
Active-Duty and Reserve officers and enlisted personnel are assigned 
duty as individual augmentees?
    Answer. We take into account several factors when selecting members 
to source augmentation requirements and Reserve mobilizations; 
specifically, skills identified during coordination of the Joint 
sourcing plan for ``in lieu of'' and ``ad-hoc'' missions. The combatant 
commander identifies the required skills (MOS, experience, etc) in the 
Unit Request Form (URF) and/or the Request for Forces (RFF) documents 
that are submitted to the Joint Staff. Through the Naval Personnel 
Development Command, we can determine which specific Navy designator/
rating or Navy Enlisted Classification System code (NEC) best meets the 
required skills. We then work with appropriate commands to identify and 
plan additional training required to meet the specific joint mission 
and the unique skill identified by the supported component commander. 
Most positions tasked to Navy require basic skills in supply, 
administration, engineering, medical or intelligence. After 
establishing the required skills, volunteers are given priority. 
Members must have the proper rating/designator and possess the required 
skills, experience, clearance, and subspecialty (if required). 
Additionally, all requirements are filled taking into consideration the 
member's professional and personal circumstances and any potential 
readiness impact on the sourcing commands.
    Active-Duty Personnel Specifics: Individuals are selected by their 
parent commands. U.S. Fleet Forces Command is responsible for assigning 
appropriate tasking across all Navy commands. Navy major commands are 
assigned requirements to fill augmentation requests, which are then 
passed to subordinate commands to identify augmentees. Commands first 
seek volunteers and then make assignments based on skill requirements.
    Reserve Personnel Specifics: Volunteer drilling reservists who have 
not been previously mobilized are considered first, followed by 
previously identified sailors who were deferred/delayed but are now 
available. After volunteers have been considered, nonvolunteers 
assigned to supporting Reserve units (if applicable) and who have not 
been previously mobilized are considered, then finally the applicable 
community managers are asked to nominate qualified sailors. In addition 
to skill requirements, other factors considered when selecting a sailor 
include experience, Expiration of Active Obligated Service, and 
Mobilization Availability Status (MAS) codes. Our Navy Reserve 
alongside our Active component sailors are providing integrated 
operational expertise to support a full range of operations.
    Question. How do these assignments impact Navy readiness?
    Answer. Navy's current readiness remains excellent. Congressional 
support has been critical in this regard and, as a result, Navy units 
and individual augmentees deploy properly trained and properly 
equipped. I believe that the current level of effort is sustainable. 
Currently, augmentation numbers represent approximately 3 percent of 
the Total Force, 2 percent of the Active-Duty component force, and 4 
percent of the Reserve component force. Fleet manning projections and 
readiness indicators are continuously assessed. Navy Personnel Command 
has undertaken a series of regular surveys and assessments to monitor 
indications that the increased deployment/workload demands may be 
adversely impacting retention or the health of the Force.

                         TRICARE FEE INCREASES

    Question. In May 2007, the Task Force on the Future of Military 
Health Care issued an interim report concluding that ``to sustain and 
improve military health care benefits for the long run, actions must be 
taken now to adjust the system in the most cost-effective ways.'' The 
Task Force recommended increasing the portion of the costs borne by 
retirees under age 65, and suggested an increase in military retired 
pay to offset part or all of the increase if Congress believes that the 
increases are too large relative to retired pay.
    Do you agree with the view that TRICARE fees for military retirees 
should be increased?
    Answer. We must be very careful not to erode the confidence of the 
men and women who serve in the United States Armed Forces and our 
military retirees. We must continue to provide them with the healthcare 
to which they are entitled while seeking ways to deliver healthcare 
benefits in a flexible, effective, and cost-efficient manner. The fees 
associated with the TRICARE plans should be balanced and fairly 
adjusted with no one group carrying an undue burden, including the 
taxpayer.
    Question. What constraints, if any, should be imposed, in your 
view, on a retiree's ability to use his or her TRICARE benefit?
    Answer. Constraints should not be placed on a retiree's ability to 
use his or her authorized TRICARE benefit. They should be afforded 
every opportunity to exercise their healthcare benefits within the 
established plan.
    Question. What recommendations, if any, would you offer to address 
the increasing cost of health care and other personnel benefits?
    Answer. Preventable chronic disease linked to lifestyle accounts 
for 75 percent of our health care costs. A strong emphasis on 
integration of health and wellness must be the foundation of an 
efficient healthcare system. Prevention programs such as tobacco 
cessation, weight management and mental and physical well being provide 
significant short and long term cost savings, as well as a more 
responsive force. Other opportunities to reduce costs include 
containing the growth of pharmacy costs by marketing the TRICARE Mail-
Order Pharmacy (TMOP) and encouraging the use of generic medications 
when appropriate. The Navy should also continue improvement of our 
electronic health data system, AHLTA, to increase the productivity of 
our providers. Additionally, expanding and investing in telemedicine 
and telehealth capabilities would enable the use of healthcare 
resources in more remote locations.
    Question. If confirmed, what role would you anticipate playing in 
any shaping or rethinking of health care benefits for military 
personnel, including retirees and their families?
    Answer. If confirmed, I will remain mindful of the challenges we 
face in healthcare, I will know the quality of care that our 
servicemembers and their families receive, and I will remain keenly 
focused on this issue so vital to readiness and the welfare of our 
sailors, retirees, and families.
    Question. How would you assess the impact of such benefits and 
changes on recruitment and retention of military personnel?
    Answer. Military personnel and their families, to include retirees, 
are strong advocates within our recruitment and retention efforts. The 
healthcare benefit is a strong recruiting and retention factor and we 
must ensure our benefits remain attractive within the overall U.S. 
labor market.

                     SEXUAL ASSAULT IN THE MILITARY

    Question. In response to a congressional requirement for 
formulation of a comprehensive policy related to sexual assaults in the 
Armed Forces, the SECDEF has promulgated guidance aimed at more 
effectively preventing sexual assaults, investigating incidents of 
sexual assault, and responding to the needs of victims of sexual 
assault.
    What is your assessment of the effectiveness of the Navy's program 
for preventing sexual assaults and addressing the needs of victims of 
sexual assault?
    Answer. Sexual assault is not tolerated in the Navy. When incidents 
occur, the Navy is committed to effective victim response and 
accountability for offenders. Prevention is our first priority, however 
when incidents occur, the Navy has a comprehensive reliable process in 
place to quickly respond to victims, offer reporting options, conduct a 
full and fair investigation, and hold offenders accountable. We must 
adhere to, assess and continually improve this process.
    The senior leadership of the Navy communicated to each commanding 
officer the expectations regarding Sexual Assault Victim Intervention 
(SAVI) responsibilities and reporting compliance, and Navy policy 
provides clear succinct guidance. Training on sexual assault awareness 
and prevention is required and provided annually. Annual and periodic 
training is required for all key stakeholders of the SAVI program to 
include legal, medical, NCIS, and Chaplains. Training for sailors is 
included throughout our curricula, including RTC Great Lakes, the Naval 
Academy, and prospective commanding officer and executive officer 
courses.
    Navy continually monitors resources for the SAVI program, has 
funded Sexual Assault Response Coordinator (SARC) positions to cover 
all installations (40 percent increase in positions since 2005), and 
trains Victim Advocates for all commands, both afloat and ashore. There 
is ongoing collaboration throughout the Navy to assess and improve the 
SAVI program and response to victims. Trained Victim Advocates respond 
quickly when incidents are reported to offer advocacy, medical, 
counseling, and military and civilian resources to victims. Each 
installation conducts monthly Sexual Assault Case Management Group 
meetings to review all unrestricted cases of sexual assault with key 
responders to address any systemic gaps or barriers.
    Navy is fully engaged in collaboration and support of DOD Sexual 
Assault Prevention and Response Office (SAPRO) and Service Sexual 
Assault Prevention and Response programs. Commands transmit required 
incident reports promptly. Data collected on both restricted and 
unrestricted reports of sexual assault are forwarded to OSD SAPRO 
quarterly meeting data collection requirements and trend analysis with 
continual improvement in performance metrics.
    Leaders are charged with remaining vigilant to the conditions that 
precipitate sexual assault and with being responsive to the needs of 
victims.

                DEFENSE INCIDENT-BASED REPORTING SYSTEM

    Question. Defense Incident-Based Reporting System (DIBRS) is an 
information technology system funded and managed by the Defense 
Manpower Data Center and required under DOD Directive 7730.47. It is 
intended to provide more comprehensive data on the incidence and types 
of crimes committed within the Armed Forces. The Department of the Navy 
is developing a Department of the Navy Criminal Justice Information 
System (DONCJIS) to satisfy DIBRS reporting requirements but has been 
unable to predict when the system will be fully operational.
    What is the status of the Navy's implementation of DIBRS and 
DONCJIS?
    Answer. Through DONCJIS, the Department will achieve full 
compliance with all aspects of the DIBRS reporting requirement. The 
Department has recently convened a Flag Officer-level Executive 
Steering Committee (ESC) to provide additional focus and oversight to 
the effort, with the goal of bringing the system to fruition in the 
near term. An upcoming ESC meeting will establish the final, target 
implementation date which is currently projected to be mid-fiscal year 
2008.
    Question. What utility do you see for Navy's senior leaders in 
having the information available through DIBRS?
    Answer. The Department does not anticipate using the DIBRS 
reporting data directly. However, the data contained in DONCJIS will 
provide tremendous value to Naval leaders in better understanding 
critical trends affecting morale, safety, and readiness. In particular, 
the Department's Uniform Crime Report, and associated analytical 
products derived from DONCJIS, will provide more insight into the 
quantity and types of criminal activity throughout the Navy and Marine 
Corps. The richness of data available from DONCJIS, when fully 
deployed, will provide the Department's leadership with much better 
management oversight and actionable information than any other current 
DOD system.

                        INDEPENDENT LEGAL ADVICE

    Question. In your past assignments, you have had the opportunity to 
observe the working relationship between the Navy General Counsel, the 
JAG of the Navy and judge advocates advising commanders in the field.
    What is your view of the need for the JAG to provide independent 
legal advice to the CNO and the Commandant of the Marine Corps?
    Answer. The CNO must receive independent advice from legal counsel. 
The law appropriately prohibits any officer or employee of the DOD from 
interfering with the JAG's independent legal advice to the Secretary of 
the Navy and the CNO. An independent, candid and trusted relationship 
among the JAG and CNO and the Commandant of the Marine Corps is 
essential to the proper functioning of their positions.
    Question. What is your view of the responsibility of judge 
advocates within the Services and joint commands to provide independent 
legal advice to military commanders?
    Answer. Judge advocates in all the Services are obligated to 
provide independent legal advice based on sound judgment and 
experience. Their loyalty is to the government of the United States, 
while simultaneously promoting the interests of their commander.
    Commanders and commanding officers are obligated to discuss 
military justice concerns with their staff judge advocates. Independent 
legal advice to military commanders is the cornerstone of our military 
justice system and the foundation for maintenance of good order and 
discipline and accountability.

                         ENVIRONMENTAL CONCERNS

    Question. The Navy is involved in civil litigation over its use of 
mid-frequency active sonar during training exercises and its impact on 
the environment. A U.S. District Court in California recently enjoined 
Navy's use of mid-frequency active sonar in the Southern California at-
sea training ranges through 2009 that impacted Navy training exercises 
needed to ensure readiness for deployment of Navy ships, submarines, 
and aircraft based on the west coast. On August 31, the United States 
Court of Appeals for the Ninth Circuit granted an emergency stay of the 
District Court's injunction pending an appeal by the Navy.
    What is the Navy doing to comply with environmental laws so it can 
continue to effectively train with mid-frequency active sonar?
    Answer. In 2002, the Navy began implementation of a comprehensive, 
fully funded strategy to ensure compliance with applicable Federal 
laws. In close coordination with the National Marine Fisheries Service, 
we have developed an execution plan that will result in completion of 
full environmental documentation of all major Navy training and 
exercise areas. The process of completing this documentation, including 
the required analysis and public comment periods, is a multi-year 
effort. The end result will be compliance for our ranges and operating 
areas.
    We have issued public Notices of Intent in the Federal Register to 
develop Environmental Impact Statements for twelve ranges and Operating 
areas. We expect to finalize these documents by the end of 2009. Once 
finalized, we will have fulfilled all legal requirements, including 
obtaining all necessary authorizations and completing all required 
consultations, for all training, including mid-frequency active sonar, 
for our at-sea ranges and operating areas.
    Concurrent with implementing our long term strategy, in the 
interim, we have prepared environmental planning under the National 
Environmental Policy Act and have obtained Biological Opinions under 
the Endangered Species Act when necessary for all major exercises. 
These exercises and other major exercises through January 2009 will be 
conducted in compliance with the National Defense Exemption under the 
Marine Mammal Protection Act (MMPA). The process of obtaining Letters 
of Authorization under the MMPA is a several year effort; therefore the 
exemption was necessary in order to allow our major exercises to be 
conducted while the long term range and operating area documentation is 
prepared. The National Defense Exemption was part of the strategy 
developed with the National Marine Fisheries Service that allows both 
agencies to apply resources to the long-term plan.
    During the exemption period, we will continue to employ stringent, 
scientifically based, mitigation measures, developed with National 
Oceanic and Atmospheric Administration's concurrence, to protect marine 
mammals during all sonar activities.
    Despite our compliance plan, lawsuits have been filed concerning 
our Joint Task Force Exercises and Composite Training Unit Exercises 
occurring in the Southern California Operating Area and our Undersea 
Warfare Exercises occurring in the Hawaiian Islands Range Complex. We 
are working with the Department of Justice in addressing these 
lawsuits.
    Continued training with active sonar is absolutely essential in 
protecting the lives of our sailors and marines and our Nation's 
defense. Increasingly quiet diesel-electric submarines continue to 
proliferate throughout the world. Our Navy must train to counter 
diesel-electric submarines and to ensure our forces can locate, track, 
and defeat them. Active sonar is the primary system to accomplish this 
task.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the CNO?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

            Questions Submitted by Senator Edward M. Kennedy

                          LITTORAL COMBAT SHIP

    1. Senator Kennedy. Admiral Roughead, the Navy testified before 
this committee that the concept for procurement of the next three 
surface combatant ships would be to bundle the research and development 
and then reuse systems across all three ships. The three ships, 
Littoral Combat Ship (LCS), DDG-1000, and CG(X) were described as the 
``family of ships.'' This committee has been very supportive of that 
concept as we watch pressure on budgets and receive testimony on the 
open architecture nature of the DDG-1000 research and development 
program. However, it does not appear that the Navy is holding to its 
plan as we see two separate combat systems in the LCS, no firm path 
forward on CG(X) that will reuse DDG-1000 open architecture, hull, and 
main engineering and combat systems. Reusing systems and subsystems 
across a number of new development ships should save taxpayer dollars 
while meeting Navy requirements. How do you intend to influence the 
development requirements for these three ships to maximize the 
application of key DDG-1000 technologies across all three ship classes?
    Admiral Roughead. The Navy is benefiting from the ``family of 
ships'' approach through the reuse of systems and technologies across 
DDG-1000, CG(X) and LCS.
    The CG(X) is part of the family of ships with its program of record 
based on DDG-1000 features and technologies. The Analysis of 
Alternatives results are currently under review, but design ship 
decisions have not yet been finalized. The program is assessing the 
potential reuse of 9 of the 10 DDG-1000 critical technologies, 
including:

         Integrated Composite Deckhouse & Apertures
         Infrared Mockups
         Multi-Function Radar (MFR), a component of the Dual Band 
        Radar (DBR)
         Peripheral Vertical Launch System (PVLS)/Advanced VLS
         Integrated Undersea Warfare (IUSW) System
         Hull Form
         Integrated Power System (IPS)
         Autonomic Fire Suppression System (AFSS)
         Total Ship Computing Environment (TSCE)

    The 10th DDG-1000 critical technology, the Advanced Gun System 
(AGS), is not currently in the CG(X) alternatives due to different 
mission requirements of the ships.
    The Ship Self-Defense System (SSDS) is a combat system that 
integrates and coordinates the existing sensors and weapons systems 
aboard most classes of non-AEGIS ships. SSDS is maximizing reuse of the 
DDG-1000 Total Ship Computing Environment (TSCE) Infrastructure 
software. The SSDS Mk 2 Combat System has integrated software 
components of the DDG-1000 TSCE Infrastructure, planned for 
installation on LPD 17 and CVN 68 Class ships. The Navy will continue 
to promote the principles of Open Architecture as it moves forward with 
completion of DDG-1000 software development. All applicable software 
components related to the DDG-1000 critical technologies will be re-
usable by CG(X), if implemented. Other key DDG-1000 Combat System 
capabilities (i.e. MH-60R integration, 57 mm gun, Electronic Warfare 
(EW) System) will be evaluated as reuse candidates.
    Regarding applicability to LCS, although the ship is complementary 
to DDG-1000 and CG(X) from an operational need standpoint, the LCS ship 
size, mission module concept, and procurement timelines have precluded, 
to date, application of key DDG-1000 technologies, beyond common use of 
the 57 mm gun system. Some DDG-1000 technologies are candidates for 
potential insertion into future LCS flights, including human systems 
integration, condition-based maintenance, and distance support. 
Additionally, the Navy intends to procure LCS Flight 1 seaframes 
starting in fiscal year 2011, with a Common Combat System and command, 
control, communications, computers, and intelligence (C\4\I) suite. The 
Common Combat System requirements provide an open architecture solution 
that is compatible with other ship classes in terms of sensors and 
mission software, providing a more affordable and effective solution in 
which the Government owns the data rights.
    In addition, the Navy plans to leverage the DDG-1000 Dual Band 
Radar investment on the CVN 78.
    As delineated in the approach and examples above, the Navy remains 
committed to bundling the research and development investments in DDG-
1000 and using them across the ``family of ships'' where applicable.

    2. Senator Kennedy. Admiral Roughead, Congress has heard a lot 
about the LCS program over the last several years, and much of it is 
negative. I believe the difficulties this program is experiencing today 
are the result, in part of the rush that occurred at the beginning of 
the program. The capability to reach close to shore quickly is 
undoubtedly a continuing requirement as global threat scenarios 
continue to evolve. However, I'm concerned that the problems in the LCS 
program jeopardize our ability to act effectively in this battle space 
in the near term. Our committee stated in the mark-up of the fiscal 
year 2008 defense budget that ``if the Navy really believed that the 
threat were that urgent, it might have taken more near-term steps to 
address it. For example, the Navy might not have cancelled the remote 
mine hunting system capability on a number of the DDG-51 class 
destroyers, ships that will be available to the combatant commanders 
much sooner than LCS. The Navy might also have taken this modular 
capability slated for the LCS and packaged those modules to deploy 
sooner on ships of opportunity.'' Additionally, the Mission Module 
Program Office, Program Executive Office (PEO) Littoral and Mine 
Warfare, stated ``We do not necessarily need an LCS to deploy these 
systems. Wherever a helicopter could land, whether it is a large-deck, 
a carrier or a pier or shore facility, we could deploy this mine 
warfare capability.'' Has the Navy taken a hard look at putting these 
mission modules on other ships or forward-basing them on-shore while we 
figure out whether we're on the right track with LCS hulls, or could we 
completely eliminate the LCS hulls, and deploy the capability on other 
ships?
    Admiral Roughead. Yes, the Navy conducted thorough analysis to 
determine the best ship class to deploy the three focused mission 
packages. This analysis shows the LCS, with its speed, draft, payload, 
and endurance is the optimal ship from which all three mission packages 
can best be employed in order to close the littoral warfighting gaps.
    The Navy's analysis examined multiple potential solutions to the 
capability gaps identified in the Joint Requirements Oversight 
Council's (JROC) Assured Maritime Access in the Littorals Initial 
Capabilities Document (ICD). The JROC approved LCS ICD included a 
Function Solutions Analysis (FSA) which examined seven solution 
options, including procuring more of the current programmed force, 
installing upgraded systems on the current force, and modifying the DDG 
51 class hull to carry the three mission packages. The FSA recommended 
the solution that contains the option for a new class of ships 
specifically tailored to the focused missions of Mine Warfare, 
Submarine Warfare, and Anti-submarine Warfare. The study also concluded 
that the new focused-mission class produced the most affordable and 
best overall performance against the littoral capability gaps.
    LCS best addresses the capability gaps identified in the JROC's 
Assured Maritime Access in the Littorals Initial Capabilities Document. 
It was designed from the keel up to specifically deploy the current 
focused mission systems with a future capability to expand into other 
roles. No other ship could deploy the full capability of a mission 
package without overcoming significant challenges including computing 
environment interfaces and space limitations. While there are elements 
of a mission package that could possibly be deployed from other ship 
types (e.g. an MH-53 can use the AQS-20 side-scan sonar for mine 
hunting much as it uses the AQS-14 today, resulting in partial mine 
countermeasures (MCM) capability when compared to the LCS mine warfare 
mission modules), it is the whole LCS mission package that satisfies 
the capability gap. Because of the uniqueness of the Mission Packages, 
LCS is the preferred and optimal ship to use the mission packages and 
mission modules.

    3. Senator Kennedy. Admiral Roughead, the Navy has requested and I 
support a 55 percent increase to the statutory cost cap for LCS, up to 
$460 million. This figure represents only the sea frame, which as I 
understand it, is basically the bare ship, without specific mission 
capability like mine or anti-submarine warfare. Given that this is the 
first time that I am aware of that we have procured the essential 
mission capability of a ship separately from the hull, I believe we 
should be considering the total acquisition cost when we consider the 
future of this program. To compare the procurement cost of an LCS to 
another ship, apples to apples, we would need to add the cost of the 
ship and the mission modules. What is the cost of LCS with its mission 
modules, and how does it compare to other, similarly outfitted ships 
that are multi-mission capable?
    Admiral Roughead. The projected end cost of an LCS sea frame 
procured in fiscal year 2008 is $460 million. This includes the 
following cost categories: basic construction, electronics (government 
furnished equipment), change orders and other program costs.
    During operations, an LCS will be outfitted with a single mission 
package configured for either mine warfare, anti-submarine warfare 
(ASW) or anti-surface warfare (SUW). The underlying strength of the LCS 
lies in this innovative design approach, applying modularity for 
operational flexibility. MP development and procurement separate from 
the sea frames allows LCS warfighting capability to keep pace with 
evolving threats, improve technology, and adapt more quickly than 
traditional ship programs.
    An MP consists of multiple mission modules, including mission 
systems transported and housed in support containers with necessary 
spares, special tools and other support equipment. An MP relies on 
supporting aircraft, MP operating crew, and training and pipeline units 
which are separately funded. In fiscal year 2008, the Navy request 
includes $47.8 million to procure one mine warfare package, $12.5 
million for one SUW package and $25.3 million for associated program 
costs in OPN and RDT&E,N. The average baseline cost of each type of MP 
across the entire program is $68 million per mine warfare package 
(baseline package starting in fiscal year 2009), $42.3 million per ASW 
package (baseline starting in fiscal year 2009) and $16.7 million per 
SUW package (baseline starting in fiscal year 2010). Cost estimates 
reflect planned integration of additional mission systems as these 
become ready for operational use.
    Due to differences in requirements, mission equipment and 
operational concepts, there are no similarly outfitted, multi-mission 
capable ships with which to compare costs.

    4. Senator Kennedy. Admiral Roughead, given that we currently have 
parallel development and production paths for these two designs, and 
that the Navy has testified that they may actually keep both designs, 
how does this impact life cycle costs?
    Admiral Roughead. The Navy's restructured LCS program proposes 
procurement of additional Flight 0 LCS ships in fiscal year 2008 and 
fiscal year 2009 to meet operational requirements.
    Procurement of additional Flight 0 ships may result in higher life 
cycle costs, but is necessary to reduce risk in existing warfighting 
capability gaps.
    The two existing designs will undergo operational performance 
testing in fiscal year 2009, and the results will be considered as part 
of the evaluation for a single design selection for the fiscal year 
2010 and later Flight 1 ships.
    Selecting a single Flight 1 seaframe achieves commonality in hull, 
mechanical, and electrical (HM&E) and C\4\I systems in the LCS class. 
Continued procurement of two seaframe designs into fiscal year 2010 and 
beyond is an alternative, should the Navy determine that each design 
presents a unique operational advantage. The implementation of a common 
combat system and C\4\I suite as part of Flight 1 would reduce 
lifecycle cost of the common warfare system, but would not achieve the 
savings in seaframe HM&E, crew training, and logistics costs 
anticipated from selecting a single seaframe design.

    5. Senator Kennedy. Admiral Roughead, isn't it more expensive to 
have two different designs of the same ship from a training and 
maintenance perspective?
    Admiral Roughead. Yes, training and maintenance costs are more 
expensive for two different designs. By design, however, the LCS combat 
systems (mission modules) will have the same capabilities and 
equipment, therefore significantly reducing associated training and 
maintenance costs.
    The Navy's proposed restructured LCS program continues to procure 
ships from the existing Flight 0 designs, and supports selection of a 
single Flight 1 design in fiscal year 2011 and out.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

                      LITTORAL COMBAT SHIP PROGRAM

    6. Senator Reed. Admiral Roughead, as you are aware, the LCS 
program has had difficulties regarding cost overruns and changing 
capability requirements. What is your plan and timeline for determining 
requirements and total cost?
    Admiral Roughead. The LCS program meets an urgent warfighting 
requirement and is a critical component to achieving the Navy's force 
structure objective of at least 313 ships. Significantly important, the 
Navy monitors this program closely.
    LCS capabilities requirements are delineated in the program's 
Capabilities Development Document (CDD). The CDD reflects the specific 
requirements of the ship and is eventually sent to industry team(s) 
responsible for building to these requirements. The CDD goes through a 
rigorous and formal development, review and approval process, and 
ultimately requires JROC. There have been no changes to LCS capability 
requirements as delineated in the CDD since JROC approval in May 2004.
    Likewise, cost has been examined in great detail. The Navy 
identified significant cost growth with the lead Lockheed Martin (LM) 
ship and issued a 90-day stop work order in January 2007 for the second 
LM ship, LCS 3, to provide time to assess factors contributing to the 
cost growth and to develop an executable program plan for the way 
ahead. Similarly, cost growth was identified with the lead General 
Dynamics (GD) ship and the Navy suspended construction of the second GD 
ship, LCS 4, to develop an executable program plan. In both cases, the 
Navy evaluated the overall performance of the programs, working closely 
with the contractors to address cost overruns and root causes.
    The Navy has revised its estimates for LCS 1 and 2 end costs plus 
post-delivery and outfitting, and has provided these estimates to 
Congress. The Navy is committed to continue working with Congress on 
this important program which is needed to fill existing warfighting 
capability gaps. We will provide our revised acquisition plan with the 
fiscal year 2009 budget submission.

    7. Senator Reed. Admiral Roughead, what are your views on an 
independent review board to assess both capabilities and costs?
    Admiral Roughead. Independent review boards may be appropriate in 
certain cases. With respect to the LCS, the Navy has conducted 
extensive program assessments and has conducted various reviews. These 
include reviews both by an independent Program Management Assist Group 
and by the Naval Inspector General. As a result, the Navy has developed 
an executable program plan that adjusts the acquisition profile, ship 
cost estimates, budgets and schedules and provides resources for 
effective management of cost, production and technical risk to deliver 
ships to the Fleet to support the urgent warfighting requirement.
    Of note, the Secretary of the Navy has recently announced his 
intention to establish an advisory panel that will provide him with 
independent advice and recommendations on matters of importance to the 
Navy, including acquisition.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor

                            NAVY HELICOPTERS

    8. Senator Pryor. Admiral Roughead, I am aware that the Navy's H-
60S is having difficulty meeting the basic performance parameters for 
its Airborne Mine Countermeasures (AMCM) mission. Has the Navy 
completed an assessment of an alternative medium lift helicopter to the 
H-60S that can meet AMCM requirements at an equal or similar cost per 
flight hour? If not, when will such an analysis occur?
    Admiral Roughead. The Navy has designated the MH-60S as its future 
airborne mine warfare helicopter; the MH-53E is the Fleet's current 
AMCM platform. The Navy has no current plans to address alternatives 
beyond the MH-60S to meet this established mission, now evolving with 
the advent of new AMCM technological advances.
    A significant effort is ongoing to integrate a suite of AMCM 
systems on the MH-60S helicopter. The AQS-20A sonar mine hunting system 
will be the first of these systems fielded. To date, it has 
demonstrated successful performance and is scheduled to commence its 
Operational Test in November 2007. Furthermore, the MH-60S has 
successfully completed numerous aircraft developmental milestones, 
demonstrating that it is capable of meeting basic AMCM performance 
parameters.
    The Navy is in the process of transforming its mine warfare 
capability from the current, dedicated platform-centered capability to 
an organic, LCS based capability. The MH-60S plays a critical role in 
this LCS-mine warfare transition. The MH-60S will be able to perform 
all mine countermeasures missions (mine hunting, mine sweeping, mine 
identification and mine neutralization) through employment of a suite 
of developing MIW systems. Future mine warfare concept of operations 
will significantly further reduce timelines and risk from mines by 
employing the MH-60S in addition to unmanned airborne, surface, and 
subsurface vehicles. These systems will provide persistent operations, 
allowing MH-60S utilization for rapid reacquisition and subsequent 
neutralization of mines.
    In June 2007, the Navy's helicopter concept of operations was 
updated with the Navy Helicopter Force Analysis Study, which 
reconfirmed the MH-60S's role in meeting AMCM requirements. With the 
MH-60S and associated AMCM systems in early developmental stages of 
meeting these requirements, the Navy does not currently plan to conduct 
an additional assessment of an alternative medium lift helicopter for 
mine warfare. The Navy will continue to closely monitor the 
helicopter's development and performance to ensure that the warfighter 
ultimately receives the most effective AMCM systems and delivery 
helicopter.

    9. Senator Pryor. Admiral Roughead, do you believe the Navy's 
current Helicopter Master Plan, dated 1998, should be updated to 
address new operational capabilities indicative of the global war on 
terrorism?
    Admiral Roughead. The Navy continually reevaluates Fleet warfighter 
capabilities to ensure that they pace the current and future threats. 
Developed in 1996, the Navy's Helicopter Master Plan was a 
requirements-based acquisition strategy to recapitalize the Navy's 
aging helicopter force while reducing future operating costs and 
expanding warfighting capabilities and missions. That plan did pre-date 
the Global War on Terror.
    The Navy's follow-on 2002 Helicopter Concept of Operations (CONOPs) 
leveraged the acquisition efficiencies of the Helicopter Master Plan 
and brought operational efficiencies through the reorganization of 
squadrons to align with the warfighting requirements of Navy Carrier 
Strike Groups and Expeditionary Forces.
    In 2007, the Helicopter CONOPs was updated with the Navy Helicopter 
Force Analysis Study. The Navy Helicopter Force Analysis Study 
determined the all encompassing helicopter force structure, mix of 
helicopters, and required capabilities for Carrier Strike Group, 
Expeditionary Strike Group, Maritime Pre-positioned Force--Future, 
independent deployers, the global war on terror, continental U.S. 
missions, and Vertical Takeoff Unmanned Aerial Vehicles for LCSs to 
support multi-mission force requirements and the Navy's 313-ship plan.
    The Navy's requirements analysis process remains dynamic and is 
designed to keep pace with current and future threats.
                                 ______
                                 
                Questions Submitted by Senator Jim Webb

                   STRATEGIC DISPERSION OF THE FLEET

    10. Senator Webb. Admiral Roughead, strategic dispersion of the 
fleet may have made sense during the Cold War, but there is no sound 
national-security reason for doing so today--especially for aircraft 
carriers homeported in Norfolk, VA. Good stewardship of taxpayer 
dollars also weighs against carrier homeport changes. Converting Naval 
Station Mayport, FL, to accept a nuclear-powered carrier would require 
expensive investments in nuclear-support infrastructure estimated at 
$235 million to $500 million. Additionally, the Navy spent $155 million 
in recent years to demolish and rebuild Pier 11 to support aircraft 
carriers in Norfolk more effectively. The Navy should obtain a full 
return on this investment in the future. Norfolk also offers a home-
porting advantage for carrier crews in terms of its immediate proximity 
to public and private shipyards certified for maintenance, 
modernization, and refueling of nuclear-powered ships. Given this 
framework, what factors in the current and projected national-security 
environment suggest the desirability of relocating an aircraft carrier 
to Mayport? What argues against it?
    Admiral Roughead. We are in the process of evaluating this issue. 
Several factors will inform our decision, and could argue either for or 
against a decision to relocate forces to Mayport. These factors 
include:

         Ability of fleet assets to meet combatant commander 
        requirements under the Fleet Response Plan (FRP);
         Results of the ongoing Environmental Impact Statement (EIS) 
        process;
         Cost implications of any force structure shifts to Mayport;
         Ability to meet nuclear carrier refueling and ship 
        maintenance requirements; and
         Impact on our sailors and their families.

    11. Senator Webb. Admiral Roughead, you said that the same process 
used by the Navy to position aircraft carriers in the Pacific region 
should be used on the east coast. There are substantial differences 
between the Pacific and Atlantic regions, however, in terms of 
geography, Navy forward presence, and operations. How would a change in 
an aircraft carrier's homeport a few hundred miles from Norfolk to 
Mayport improve the Navy's response and presence as you suggested?
    Admiral Roughead. In reaching our decision on east coast carrier 
homeporting, we must consider our ability to respond to combatant 
commander mission requirements. Ships operating from Mayport, FL, would 
offer an improved response time to the U.S. Southern Command Area of 
Responsibility. Also, in the event naval forces were unable to operate 
from Norfolk, Mayport would provide an alternate location from which 
the Navy could support combatant commander requirements. These 
operational considerations must be evaluated in the context of the 
ongoing EIS process, the total cost implications, the ability to meet 
nuclear carrier refueling and ship maintenance requirements, and the 
impact on our sailors and their families.

    12. Senator Webb. Admiral Roughead, Navy and Marine Corps carrier-
based aircraft squadrons are based close to Norfolk to afford the 
carrier and its air wing more efficient and less costly at-sea 
training, fleet and joint exercises, and operational deployments. In 
what ways would the relocation of a carrier from Norfolk to Mayport 
affect this logical and time-proven model?
    Admiral Roughead. There would be a minimal affect. Fixed-wing 
carrier based aircraft can fly, unrefueled to the Fleet Training Areas. 
Fixed-wing aircraft at Naval Air Station (NAS) Oceana and NAS Norfolk 
can transit and join a carrier in the Virginia Capes or Jacksonville 
Operating Areas. Rotary-wing aircraft also would experience a seamless 
transition if required. Since the loss of the Fleet Training Areas in 
Puerto Rico, the Jacksonville Operating Area has been used more 
extensively for fleet and joint exercises and certification for 
deployments.
    Because east coast carrier air wings are currently composed of 
squadrons from Virginia, South Carolina, Washington, and Florida; the 
Navy's experience with carriers homeported in Mayport indicates this 
would not significantly change our onload logistic requirements.

    13. Senator Webb. Admiral Roughead, what is the current status and 
future milestones for the current Navy Environmental Impact Study (EIS) 
of relocating ships to Mayport?
    Admiral Roughead. The Draft EIS will be released to the public in 
March 2008. Public hearings are tentatively scheduled for April 2008. 
The final EIS will likely be released to the public in December 2008. A 
record of decision is anticipated in January 2009.

    14. Senator Webb. Admiral Roughead, will the Navy's EIS study 
address the full costs associated with relocating an aircraft carrier 
from Norfolk to Mayport--to include needed investments in nuclear-
support infrastructure, the cost resulting from a crew's permanent 
change of station, and other expenses generated when carriers would be 
required to relocate to Norfolk for extended overhauls?
    Admiral Roughead. The purpose of the EIS is to evaluate the 
potential environmental impacts of homeporting additional U.S. Fleet 
Forces surface ships at Naval Station Mayport, FL. Although the EIS 
does include estimated costs associated with infrastructure 
requirements for the various alternatives, an EIS is not required to, 
and normally does not, analyze every cost associated with a proposed 
action such as cost of permanent change of station moves.
    In addition, I will provide to the Secretary an assessment of the 
national security requirements and a recommended force laydown for his 
consideration. In his final decision, the Secretary will consider the 
national security requirements, strategic positioning of our ships, 
existing capabilities, total cost, and other programmatic factors, and 
the impact on our sailors and their families.

                         NORFOLK NAVAL SHIPYARD

    15. Senator Webb. Admiral Roughead, you state in your response to 
one of the committee's advance policy questions that ship-repair 
facilities are currently adequate to incorporate surges in deployment. 
Virginia's Norfolk Naval Shipyard has made noteworthy performance 
improvements in lowering costs and completing work on or ahead of 
schedule, but serious and, in some cases, unsafe deficiencies exist. 
They include aging, deteriorating buildings, piers, and dry docks; a 
degraded electrical-distribution system; and an inefficient plant 
layout for the maintenance, modernization, and repair of nuclear-
powered submarines and aircraft carriers. As Chief of Naval Operations 
(CNO), what is your plan to remedy these and other deficiencies to 
allow Norfolk Naval Shipyard to remain a world-class facility?
    Admiral Roughead. We recognize that the Navy has historically taken 
risk in shore infrastructure investment to increase investment in 
afloat readiness and future platforms and weapons systems. As a result, 
the condition, capability and current and future readiness of our shore 
infrastructure has degraded. We are embarking on a Shore Investment 
Strategy that will direct a systematic and consistent approach to 
assessing the material condition of our shore infrastructure and 
provide a comprehensive, balanced investment program that will improve 
our shore facilities worldwide, to include Norfolk Naval Shipyard.
    Using Military Construction (MILCON) and Sustainment, Restoration 
and Modernization programs, we have already begun to address 
deficiencies as follows:
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    In addition to the MILCON Projects above, Navy awarded a fiscal 
year 2007 special project, repair berths 3 & 4, for $22.7 million in 
September 2007.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                       PORTSMOUTH NAVAL SHIPYARD

    16. Senator Collins. Admiral Roughead, I would like to address a 
topic of concern to me and many of my constituents in Maine, and that 
is the Portsmouth Naval Shipyard. Portsmouth has a demonstrated 
proficiency in work on attack submarines and continues to lead the 
Nation in timely and cost-effective submarine overhaul, modernization, 
and repair work. The shipyard was also identified as the ``gold 
standard'' of public shipyards during the 2005 base realignment and 
closure (BRAC) considerations and earlier this year, was designated as 
the Ship Availability Planning and Engineering Center for the Virginia-
class of submarines. I have no doubt that the capable and dedicated 
workforce at Portsmouth will rise to this challenge and that of 
maintaining a new submarine class, as they have so many times before. I 
visited the Portsmouth Naval Shipyard most recently in August, however, 
and I am concerned that the Navy is not providing Portsmouth with the 
infrastructure and facilities it needs to perform its important mission 
in the most cost-effective manner possible. I will give you one example 
to illustrate my point. Portsmouth is scheduled to perform its first 
Virginia-class submarine availability in fiscal year 2010. The Navy's 
Program Objective Memorandum (POM) for fiscal year 2011 includes plans 
to build a new waterfront support facility for Portsmouth's #3 drydock. 
That drydock will be used to berth Virginia-class submarines. But, 
those submarines are scheduled to start arriving at Portsmouth before 
this waterfront support facility is built, and I am concerned that the 
challenges posed by a new submarine class, coupled with those of an 
already aging and dated facility, could cause unnecessary 
inefficiencies and delays. The Navy's latest business plan for our 
Nation's four public shipyards outlines the challenges we face in 
modernizing our public shipyards' infrastructure, including funding 
limitations and competing priorities. Yet, since 1992, approximately 
$762 million have been spent on MILCON projects at the four public 
shipyards, and only $63 million--just over 8 percent--of those funds 
have been expended at Portsmouth. That figure is deeply disconcerting 
to me and has understandably resulted in extensive needs at Portsmouth. 
I believe that the men and women of Portsmouth Naval Shipyard warrant 
greater support from the Navy in modernizing the shipyard's dated 
facilities. If confirmed, would you pledge to thoroughly review and 
modify as necessary the Navy's MILCON plans for Portsmouth and the 
other public shipyards to ensure that their workforces are provided 
with the facilities they need to complete their important missions?
    Admiral Roughead. I do. The Navy recognized it has taken some risk 
in shore infrastructure investment in the past to increase investment 
in afloat readiness and future platform and weapons systems. As a 
result, the condition, capability and current and future readiness of 
our shore facilities have degraded. We will develop a Shore Investment 
Strategy that will direct a systematic and consistent approach to 
assessing the material condition of our shore infrastructure and 
provide a comprehensive, balanced investment program that will improve 
our shore facilities worldwide, including Portsmouth Naval Shipyard. I 
am committed to this approach.

                          DDG-51 MODERNIZATION

    17. Senator Collins. Admiral Roughead, DDG-51 modernization 
upgrades will increase automation, enhance situational awareness, and 
reduce the crew size per ship. At my urging, this committee has 
included a provision in the National Defense Authorization Act for 
Fiscal Year 2008 directing the Secretary of the Navy to submit a report 
to Congress outlining the alternative acquisition strategies under 
consideration for the DDG-51 modernization program, including the 
potential use of the DDG-51 construction shipyards. Will you commit to 
seriously reviewing the potential benefits of utilizing the uniquely 
qualified and experienced DDG-51 construction shipyards for in-service 
DDG-51 modernization?
    Admiral Roughead. I am committed to the continued review and 
refinement of the DDG modernization acquisition strategy, including 
potential utilization of DDG-51 class construction shipyards. 
Additionally, DDG-51 Class construction shipyards remain eligible to 
compete/team for the multi-ship, multi-option cost contract vehicles in 
ships' homeports.

                          LITTORAL COMBAT SHIP

    18. Senator Collins. Admiral Roughead, one concern that I have with 
the proposed plan for the LCS program is that after the Navy down-
selects to one sea frame design, the Navy intends to have an open 
competition to award the contract for construction of future LCSs. It 
would seem to me that all of the pains that have been endured during 
the design and construction of the first two ships would be lost if you 
subsequently awarded a third party, that is neither LM nor the GD-Bath 
Iron Works-Austal team, the final contract award. How does the Navy 
plan to recoup the learning costs that have been associated with the 
design and development by LM and GD if the contract is awarded to a 
different shipyard?
    Admiral Roughead. The Navy's intended approach will provide a 
mature design package that incorporates the lessons learned from lead 
ship design and construction. This complete design package, coupled 
with the full and open competition acquisition plan for procurement, 
will maximize competition to get the best price for the Navy.
    While this strategy may result in additional nonrecurring start up 
costs in the near-term, the approach expands potential sources, thereby 
increasing competition to drive costs lower. Expanding potential 
sources also enables higher production rates in the outyears needed to 
procure a 55-ship LCS class and achieve the Navy's force structure 
objective of at least 313 ships.
                                 ______
                                 
              Questions Submitted by Senator Mel Martinez

                      DISPERSAL OF ATLANTIC FLEET

    19. Senator Martinez. Admiral Roughead, after the BRAC round of 
2005, we are now left with two surface homeports on the Atlantic and 
the Gulf of Mexico. With the retirement of U.S.S. John F. Kennedy we 
now have all our carriers in the Atlantic located in Norfolk. What is 
your position on the strategic dispersal of our Atlantic Fleet 
carriers?
    Admiral Roughead. We must carefully consider various factors before 
deciding on potential strategic dispersal of our Atlantic Fleet assets, 
including our carriers. The factors include:

         Ability to meet combatant commander requirements under the 
        FRP,
         results of the ongoing EIS process,
         cost implications of any force structure shifts,
         the ability to meet nuclear carrier refueling and ship 
        maintenance requirements, and
         impact on sailors and their families.

    We are in the process of evaluating this important strategic 
matter.

    20. Senator Martinez. Admiral Roughead, do you agree that it is in 
the best national security interest of the U.S. to maintain two nuclear 
carrier home ports on the east coast?
    Admiral Roughead. There are many factors to consider regarding 
strategic dispersal options for the Fleet, including carriers. Two 
carrier homeports on the east coast is a potential option that we are 
studying. Several factors will inform the decision on carrier home 
ports, including: the ability of fleet assets to meet combatant 
commander requirements under the FRP, results of the ongoing EIS 
process, cost implications of any force structure shifts, the ability 
to meet nuclear carrier refueling and ship maintenance requirements, 
and impact on sailors and their families.

    21. Senator Martinez. Admiral Roughead, there is an ongoing EIS at 
Naval Station Mayport to determine what steps will be needed to make it 
nuclear ready. What steps are the Navy taking now, while the fiscal 
year 2009 budget is still being worked on, that will help hasten the 
transition at Mayport into a nuclear ready port as quickly as possible?
    Admiral Roughead. As you note, the EIS to review and assess a broad 
range of alternatives for homeporting additional surface ships, 
including a nuclear aircraft carrier, at Naval Station Mayport is 
ongoing. The EIS is planned for completion in January 2009. Any near 
term actions to ``hasten the transition at Mayport into a nuclear ready 
port'' would be premature at this time. During the EIS process, the 
Navy will continue to resource and maintain the existing infrastructure 
at Naval Station Mayport to meet the mission of the installation.

                            10 CARRIER FLEET

    22. Senator Martinez. Admiral Roughead, the administration wants to 
reduce the carrier fleet to 10 ships until the commissioning of the 
U.S.S. Gerald Ford (10 carriers between the first quarter of fiscal 
year 2013 and the fourth quarter of fiscal year 2015). I understand 
that current threat assessments are based on peace-time models and that 
the risk during the 33 months where we would have 10 carriers has been 
deemed an ``acceptable, although moderate, risk''. However, recent 
movements by our enemies have shown that peace-time models may not fit 
for our near- and longer-term future. Are 10 carriers adequate to meet 
the national security threats around the globe?
    Admiral Roughead. I am committed fully to an 11-carrier force, as 
analysis indicates that fewer than 11 carriers is not acceptable for an 
extended period. The Navy conducts risk analysis which is continually 
updated based on changes in the threat environment. The analysis of the 
temporary reduction in carrier numbers determined that our most 
feasible option from a technical, fiscal, and risk perspective, is to 
leverage the flexibility available in our operations and maintenance 
schedules to manage the risk during the period of concern.
    The Navy will be able to mitigate the majority of the carrier force 
structure gap through selective rescheduling of carrier availabilities 
(either advancing or delaying the planned start of selected 
availabilities). The inherent flexibility provided by the FRP will 
enable the Navy to further mitigate additional risk or shortfalls in 
carrier force structure.

    23. Senator Martinez. Admiral Roughead, what can we do to help 
alleviate some of the risk involved with maintaining a 10 carrier fleet 
for the projected 33 month timespan?
    Admiral Roughead. The Navy has conducted risk analysis that 
balances projected demands with projected operations and maintenance 
schedules, and has determined the risk to be moderate and acceptable.
    The Navy looked at several options to mitigate the projected 
shortfalls in carrier presence and surge capacity during that period 
and determined the best mitigation strategy is to adjust maintenance 
schedules to either delay or advance scheduled availabilities to align 
with modified operating schedules. The inherent flexibilities of Navy's 
FRP and the planned 50-year service life of Nimitz- and Gerald R. Ford-
class carriers permit several options to better optimize carrier strike 
group availability. Examples include:

         Delay Refueling Complex Overhauls and add Selected Restricted 
        Availabilities (SRAs).
         Accelerate, delay, or shorten Docking Planned Incremental 
        Availabilities (DPIA).
         Reschedule smaller maintenance availabilities including 
        Planned Incremental Availabilities, SRAs, and Continuous 
        Maintenance Availabilities.

    While the above actions will help to mitigate risk during the 
limited period of a 10 carrier fleet, they can not be sustained 
indefinitely. I am committed fully to an 11-carrier force for the long 
term.

    24. Senator Martinez. Admiral Roughead, in your opinion, what are 
the greatest potential challenges and threats that face our currently 
undersized naval fleet?
    Admiral Roughead. The greatest potential threats that currently 
face our Navy are:

         The emergence of sensors, platforms, and weapons systems that 
        challenge the U.S. Navy's access to strategic maritime 
        environments.
         The continued proliferation of asymmetric capabilities (such 
        as swarming small boats and mines) to lower-tier nations and 
        non-state actors that challenge unimpeded Navy operations.
         The targeting and disruption of U.S. computer networks.
         The evolution of terrorist means and methods, including 
        maritime threats to the homeland.

    The Navy is meeting current near-term combatant commander demands 
to counter these threats, but faces potential challenges in sustaining 
current readiness levels while continuing to build the future fleet as 
outlined in the Quadrennial Defense Review. The Navy's investment 
strategy adequately balances today's capability and capacity 
requirements with the longer-term realities of a changing future 
security environment. Meeting these challenges requires a strong 
commitment to sustained combat readiness, stable shipbuilding and 
aircraft procurement programs, and pursuing, with our industry 
partners, the efficiencies required to afford the future force.

    25. Senator Martinez. Admiral Roughead, should a contingency arise 
where the President deems it necessary to deploy six or seven of our 
aircraft carriers, what would be your plan to support this potential 
mission?
    Admiral Roughead. The Navy's FRP delivers enhanced surge 
capability, while continuing to provide rotationally deployed forces to 
fulfill Global Force Management commitments. The FRP goals are to 
provide six carriers for surge response within 30 days of notification 
and one carrier within 90 days. This readiness is referred to as 
``6+1.''
    Typically, the first carriers to respond to the contingency 
described would include the carrier already deployed for rotational 
presence and the carrier assigned to the Forward Deployed Naval Forces. 
With forces based in the continental United States maintaining unit 
readiness to support surge operations, aircraft carriers having 
completed the Advanced Integrated Phase of training and certified as 
Major Combat Operations (MCO) Ready would deploy next. Other carriers 
in the Integrated or Basic Phases of training would receive accelerated 
training to attain MCO surge certification and would deploy as 
required, based on the contingency. Navy monitors FRP readiness very 
closely and leverages the flexibility available in our operations and 
maintenance schedules to meet all requirements.

                          SHIPBUILDING BUDGET

    26. Senator Martinez. Admiral Roughead, what will you do to ensure 
that the cost overruns and late deliveries that some of our recent 
shipbuilding projects have seen do not occur during your tenure as CNO?
    Admiral Roughead. There have been a variety of reasons for cost 
overruns and late deliveries in major shipbuilding programs, including 
inadequate acquisition workforce staffing, overly optimistic cost 
estimates, requirements growth (increased scope), inaccurate 
assessments of technology maturity, poor performance in the shipyards, 
and starting construction prior to design maturity. The acquisition and 
requirements communities' goal remains to provide the Navy with the 
Fleet required to meet national requirements.
    The Navy has taken positive action to reduce requirements creep 
through the Navy's Resources and Requirements Review Board, a senior 
three-four star level board which reviews the capability and resource 
requirements for all major acquisition programs. This process allows 
the Navy to make better cost and capability requirements tradeoffs.
    The only area in which the Navy requests assistance from the 
committee is stability in program funding, the lack of which can result 
in major cost increases. A commitment to the Navy's Annual Long Range 
Plan for Construction of Naval Vessels will create predictable programs 
in terms of funding and procurement requirements. The result enables 
the industrial base to forecast future workload to plan investments in 
capital and labor efficiency improvements to drive down end-costs and 
improve delivery schedules.

    27. Senator Martinez. Admiral Roughead, in terms of the Navy's 
overall budget, what steps will you take to ensure that the proposed 
requirements and costs of our entire range of shipbuilding projects are 
kept in line with the Navy's budget estimates?
    Admiral Roughead. The Navy's shipbuilding plan recognizes the need 
for careful management of requirements and aggressive cost control 
measures. This can only be achieved in partnership with industry by 
utilizing realistic assumptions, instilling discipline in shipbuilding 
requirements, and driving more industry and government investments to 
reduce cost. With more definition of future ship programs, the Navy may 
need to adjust the average annual investment objective while always 
validating the warfighting requirements as appropriate. Given the 
importance of requirements-containment and cost-reduction to the 
viability of the shipbuilding plan, the Navy continues to evaluate each 
ship class and identify cost reduction opportunities while balancing 
warfighting requirements, costs, and industrial base realities.
    The Navy is committed to stable out-year procurements that industry 
can use to anticipate workload. This, in turn, allows industry to 
commit resources and create efficiencies to decrease the end-cost of 
Navy ships. The Navy plans greater use of contract incentives, such as 
steep share lines combined with performance incentives to contribute to 
real cost containment in future shipbuilding plans. Also, the Navy will 
pursue other areas for improvement in our acquisition workforce and 
organization. As we build the future fleet, discipline will be required 
of all stakeholders to ensure all shipbuilding projects are in line 
with the Navy's budget estimates.

                               SUBMARINES

    28. Senator Martinez. Admiral Roughead, according to news reports, 
between 2002 and last year, China built 14 new submarines, including 
new Song-class vessels and several other types, both diesel- and 
nuclear-powered. With the Chinese defense budget continuing to grow at 
startling rates should the U.S. increase our own production of 
submarines?
    Admiral Roughead. A force of at least 313 ships, including 48 
attack submarines, is necessary to meet future projected warfighting 
requirements. These warfighting requirements are indexed to the 
Department of Defense fiscal year 2020 threat assessments, which 
include anticipated potential threat force levels and are compliant 
with the 2006 Quadrennial Defense Review and Strategic Planning 
Guidance. The shipbuilding plan detailed in Navy's Report to Congress 
on Annual Long-Range Plan for Construction of Naval Vessels for fiscal 
year 2007 is the best balance of anticipated resources to force 
structure requirements.

    29. Senator Martinez. Admiral Roughead, for reasons of cost, what 
are your thoughts on the U.S. developing and producing quiet diesel 
submarines, which would potentially be a fraction of the cost of their 
nuclear powered counterparts?
    Admiral Roughead. Navy has no plans to build diesel submarines for 
its own use. Diesel submarines do not meet our operational 
requirements. Nuclear powered submarines are more effective in 
potential wartime scenarios and are more cost effective when all 
aspects of fielding a force of conventionally powered submarines are 
considered.
                                 ______
                                 
    [The nomination reference of ADM Gary Roughead, USN, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    August 2, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as Chief of Naval 
Operations, United States Navy and appointment to the grade indicated 
while assigned to a position of importance and responsibility under 
title 10, U.S.C., section 601:

                             To be Admiral

    ADM Gary Roughead, 0000.
                                 ______
                                 
    [The biographical sketch of ADM Gary Roughead, USN, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
         Transcript of Naval Service for ADM Gary Roughead, USN

15 July 1951..............................  Born in Buffalo, NY
30 June 1969..............................  Midshipman, U.S. Naval
                                             Academy.
06 June 1973..............................  Ensign, U.S. Navy
06 June 1975..............................  Lieutenant (junior grade)
01 July 1977..............................  Lieutenant
01 Oct. 1981..............................  Lieutenant Commander
01 Oct. 1987..............................  Commander
01 Aug. 1993..............................  Captain
31 Oct. 1997..............................  Designated Rear Admiral
                                             (lower half) while in
                                             billets commensurate
                                             serving with that grade
01 Oct. 1998..............................  Rear Admiral (lower half)
18 May 2000...............................  Designated Rear Admiral
                                             while serving in billets
                                             commensurate with that
                                             grade
01 Aug. 2001..............................  Rear Admiral
08 Aug. 2003..............................  Designated Vice Admiral
                                             while serving in billets
                                             commensurate with that
                                             grade
15 Aug 2003...............................  Vice Admiral
30 June 2005..............................  Designated Admiral while
                                             serving in billets
                                             commensurate with that
                                             grade
01 Sep. 2005..............................  Admiral, service continuous
                                             to date
 

Assignments and duties:

------------------------------------------------------------------------
             Assignments and Duties                  From         To
------------------------------------------------------------------------
Naval Nuclear Power School, Naval Training         June 1973   Oct. 1973
 Center, Bainbridge, MD.........................
Fleet Combat Direction Systems Training Center     Oct. 1973   Nov. 1973
 Atlantic (DUINS)...............................
U.S.S. Josephus Daniels (DLG 27) (Gunnery           Nov 1973   Oct. 1976
 Assistant).....................................
Surface Warfare Officers School Command,           Oct. 1976   Dec. 1976
 Newport, RI (DUINS)............................
Commander, Naval Surface Force, U.S. Atlantic      Jan. 1977   Feb. 1977
 Fleet (PXO Briefings)..........................
Naval Guided Missiles School Dam Neck, VA,         Feb. 1977   Mar. 1977
 (DUINS)........................................
XO, U.S.S. Douglas (PG 100).....................   Apr. 1977   Oct. 1977
XO, U.S.S. Tacoma (PG 92).......................   Oct. 1977   June 1978
Surface Warfare Officers School Command Newport,   July 1978   Apr. 1979
 RI (DUINS).....................................
Service School Command, NTC, Great Lakes (DUINS)   Apr. 1979   July 1979
Fleet Training Center, Norfolk, VA (DUINS)......   July 1979   July 1979
U.S.S. Obannon (DD 987) (Engineering Officer)...   July 1979   Dec. 1981
Commander, Naval Surface Force, U.S. Atlantic      Dec. 1981   Dec. 1983
 Fleet (Aide and Flag Lieutenant)...............
Surface Warfare Officers School Command Newport,   Dec. 1983   Feb. 1984
 RI (DUINS).....................................
XO, U.S.S. Spruance (DD 963)....................   Apr. 1984   Jan. 1986
Office of the CNO (Resource Sponsor for DD 963,    Jan. 1986   Apr. 1987
 DDG 993 Class Ship Survivability Coordinator)..
Office of Program Appraisal (Surface Warfare        May 1987   Mar. 1988
 Analyst).......................................
Immediate Office of the Secretary of the Navy      Mar. 1988   Mar. 1990
 (Administrative Aide to SECNAV)................
Senior Officer Ship Material Readiness Course,     Mar. 1990   June 1990
 Newport, RI (DUINS)............................
CO, U.S.S. Barry (DDG 52).......................   June 1990   Oct. 1993
Commander, U.S. Pacific Command (Executive         Oct. 1993   Aug. 1995
 Assistant).....................................
CO, U.S.S. Port Royal (CG 73)...................   Jan. 1996   July 1997
Commandant, U.S. Naval Academy..................   Aug. 1997   Apr. 2000
Commander, Cruiser Destroyer Group Two..........   Apr. 2000   Jan. 2001
Chief of Legislative Affairs....................   Jan. 2001   Aug. 2003
Commander, Striking Fleet Atlantic and             Aug. 2003   Oct. 2004
 Commander, Second Fleet........................
Deputy Commander, U.S. Pacific Command..........   Oct. 2004   June 2005
Commander, U.S. Pacific Fleet...................   July 2005    May 2007
Commander, U.S. Fleet Forces Command............    May 2007     To date
------------------------------------------------------------------------

Medals and awards:
    Defense Distinguished Service Medal
    Distinguished Service Medal
    Defense Superior Service Medal
    Legion of Merit with three Gold Stars
    Meritorious Service Medal with one Gold Star
    Navy and Marine Corps Commendation Medal
    Navy and Marine Corps Achievement Medal Star with one Gold Star
    Joint Meritorious Unit Award
    Meritorious Unit Commendation with two Bronze Stars
    Navy ``E'' Ribbon with two Silver ``Es''
    National Defense Service Medal with two Bronze Stars
    Armed Forces Expeditionary Medal with one Bronze Star
    Vietnam Service Medal with one Bronze Star
    Sea Service Deployment Ribbon with one Silver Star

Special qualifications:
    BS (Foreign Affairs) U.S. Naval Academy, 1973.
    Language qualification: Spanish (knowledge).

Personal data:
    Wife: Ellen Weflen of Mulberry, IN.
    Children: Elizabeth Anna Roughead (Daughter), Born: 19 April 1987.

Summary of joint duty assignments:

----------------------------------------------------------------------------------------------------------------
                             Position                                         Dates                  Rank
----------------------------------------------------------------------------------------------------------------
Commander, U.S. Pacific Command (Executive Assistant).............      Oct. 1993-Aug. 1995             Captain
Commander, Striking Fleet Atlantic................................      Aug. 2003-Oct. 2004        Vice Admiral
Deputy Commander, U.S. Pacific Command............................      Oct. 2004-June 2005        Vice Admiral
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by ADM Gary 
Roughead, USN, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Gary Roughead.

    2. Position to which nominated:
    Chief of Naval Operations.

    3. Date of nomination:
    July 26, 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 15, 1951; Buffalo, NY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Ellen Weflen Roughead.

    7. Names and ages of children:
    Daughter - Elizabeth (20).

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    U.S. Naval Institute - Member.
    Surface Navy Association - Member.
    U.S. Naval Academy Alumni Association - Member.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                            ADM Gary Roughead, USN.
    This 27th day of July, 2007.

    [The nomination of ADM Gary Roughead, USN, was reported to 
the Senate by Chairman Levin on September 27, 2007, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 28, 2007.]
                              ----------                              

    [Prepared questions submitted to GEN William E. Ward, USA, 
by Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. As the Deputy Commander of the U.S. European Command 
(EUCOM), I have witnessed firsthand the importance of a broad, global 
perspective complemented by an integrated, joint approach that 
synchronizes military activities and complements them with other 
instruments of national power, nongovernmental agencies and our allies. 
At EUCOM headquarters the Joint Interagency Coordination Group (JIACG) 
presents a model for combined, interagency cooperation. Every military 
service that makes up the Command works closely with a representative 
from the Departments of State (DOS), Justice, Treasury, Drug 
Enforcement Agency, as well as with representatives from the Office of 
the Secretary of Defense and intelligence agencies to provide for the 
effective coordination of the interagency effort.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. If confirmed, I will be carefully examining what 
modifications might be appropriate for this new unified command 
structure as Africa Command (AFRICOM) evolves.
    Question. Do you believe that the role of the combatant commanders 
under the Goldwater-Nichols legislation is appropriate and the policies 
and processes in existence allow that role to be fulfilled?
    Answer. Yes.
    Question. Do you see a need for any change in those roles, with 
regard to the resource allocation process or otherwise?
    Answer. If confirmed, I will carefully examine what modifications 
might be appropriate for this new unified command structure and will 
inform the Department and Congress, as appropriate.

                             RELATIONSHIPS

    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the combatant commands. Other 
sections of law and traditional practice, however, establish important 
relationships outside the chain of command. Please describe your 
understanding of the relationship of the Commander, U.S. AFRICOM to the 
following offices:
    The Under Secretaries of Defense.
    Answer. A direct command relationship between the Under Secretaries 
of Defense and the AFRICOM Commander does not exist. However, I 
anticipate that the AFRICOM Commander will regularly interact, 
coordinate and exchange information with the Under Secretaries of 
Defense on issues relating to African affairs. The commander should 
directly communicate with the Under Secretaries of Defense on a regular 
basis.
    Question. The Assistant Secretaries of Defense.
    Answer. There is not a direct command relationship between the 
Assistant Secretaries of Defense and the AFRICOM Commander. The AFRICOM 
Commander and the Assistant Secretaries of Defense will work together 
on issues concerning Africa.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman functions under the authority, direction and 
control of the National Command Authority. The Chairman will transmit 
communications between the National Command Authority and the AFRICOM 
Commander as well as oversee the activities of the Commander as 
directed by the Secretary of Defense. As the principal military advisor 
to the President and the Secretary of Defense, the Chairman is a key 
conduit between a unified commander, Interagency and the Service 
Chiefs. The AFRICOM Commander will keep the Chairman informed on 
significant issues regarding the AFRICOM area of responsibility (AOR). 
The Commander will directly communicate with the Chairman of the Joint 
Chiefs of Staff on a regular basis.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. There is not a direct command relationship between the Vice 
Chairman of the Joint Chiefs of Staff; however, the AFRICOM Commander 
will keep the Vice Chairman informed on all significant issues 
regarding the AFRICOM AOR. The AFRICOM Commander also advises the Vice 
Chairman in his role as the Chairman of the Joint Requirements 
Oversight Council, the Vice Chairman of the Defense Acquisition Board, 
co-chair of the Defense Advisory Working Group, and a member of the 
Senior Readiness Oversight Council specifically on all joint issues 
that address present and/or future joint warfighting capabilities.
    Question. The Director of the Joint Staff.
    Answer. There will be no direct command relationship between the 
Director of the Joint Staff and the AFRICOM Commander. The AFRICOM 
Commander will work with the Director of the Joint Staff on issues 
related to Africa.
    Question. The Secretaries of the Military Departments.
    Answer. The Secretaries of Military Departments are responsible for 
administration and support of forces that are employed by AFRICOM. The 
Secretaries fulfill their responsibilities by exercising administrative 
control through the Service Component Commands assigned to AFRICOM.
    Question. The Service Chiefs.
    Answer. The Service Chiefs are responsible for ensuring the 
organization and readiness of each respective service branch and for 
advising the President. However, the Service Chiefs do not have 
operational command authority. The AFRICOM Commander will rely upon 
each of the Service Chiefs to provide properly equipped and capable 
forces to accomplish missions in the AFRICOM AOR.
    Question. The other combatant commanders.
    Answer. Once AFRICOM reaches Full Operational Capability, there 
will be a series of agreements between AFRICOM and EUCOM with regards 
to the Mediterranean Dialogue countries (Israel, Libya, Algeria, 
Tunisia, Mauritania, and Morocco). There will also be unique commander 
to commander agreements and memoranda concerning Egypt, Yemen, and Gulf 
of Aden (between Central Command (CENTCOM) and AFRICOM). Formal 
relationships between the AFRICOM Commander and the geographic and 
functional Unified Commanders, like the other Unified Commanders, will 
derive from command authority established by title 10, U.S.C., section 
164. Combatant commanders closely coordinate as necessary to accomplish 
all assigned missions.
    Question. The Secretary of State.
    Answer. While there will be no direct command relationship between 
the Secretary of State and the AFRICOM Commander, there will be an 
expectation of a close working relationship between the Secretary of 
State and the AFRICOM Commander. Because AFRICOM is focused on title 22 
activities, there is an expectation that AFRICOM will have a much 
closer, more integrated working relationship with the DOS.
    Question. The respective U.S. chiefs of mission.
    Answer. There will be no formal command relationship between the 
AFRICOM Commander and the U.S. Chiefs of Mission for the Nations of the 
AFRICOM AOR. In a foreign country, the U.S. Ambassador is responsible 
to the President for directing, coordinating and supervising all U.S. 
Government elements in the host nation. The AFRICOM Commander will 
coordinate and exchange information with U.S. Chiefs of Mission 
regularly on matters of mutual interest, to include engagement 
activities with partner militaries. In addition to the regular exchange 
of information with the U.S. Chiefs of Mission, it is likely that just 
as the Commander and Deputy Commander for EUCOM hosted regional 
conferences, so too might the AFRICOM Commander. If confirmed, I intend 
to continue this practice.
    Question. The respective U.S. defense attaches.
    Answer. There is not a direct command relationship between the 
respective U.S. defense attaches and the AFRICOM Commander. Military 
protocol will be exercised between the U.S. defense attaches and 
AFRICOM, as appropriate.

                             QUALIFICATIONS

    Question. If confirmed, you will be the first Commander of the 
newly established United States AFRICOM.What background and experience 
do you have that you believe qualifies you for this position?
    Answer. I have been fortunate to serve in a number of positions 
that have helped prepare me for these duties--foremost among them is my 
service over the past 16 months as the Deputy Commander, U.S. EUCOM. In 
this position I had the opportunity to work with our partners in Africa 
and understand some of the challenges these nations face in providing 
security for their people, modernizing their militaries, eliminating 
corruption, and ensuring overall transparency in their governments. My 
assignment as United States Security Coordinator, Israel-Palestinian 
Authority allowed me to glean a unique perspective into the inner 
workings of the DOS, which will be very useful given the interagency 
construct of this new command. Working as Chief of the Office of 
Military Cooperation in Egypt I served as a member of the Country Team 
under Chief of Mission authority. This experience provided me 
tremendous experience in the areas of security cooperation and 
assistance, which I will apply across the continent of Africa.
    Between service as a Brigade Commander of the 10th Mountain 
Division during Operation Restore Hope on the Horn of Africa, followed 
by a tour as Commander, Stabilization Force in Bosnia and Herzegovina, 
I gained hands-on experience in the conduct and management of post-
conflict stability and humanitarian relief operations which are complex 
and dynamic. While the Deputy Commander and Chief of Staff of the 
United States Army in Europe, I learned a great deal about the 
importance of the U.S. Army's presence in Europe and its engagement 
activities with NATO and partner nations in Europe. Each of these 
positions brought to light the need for close coordination, not only 
between AFRICOM and its neighboring unified commands, but also among 
AFRICOM, EUCOM, the African Union, and NATO.
    I believe all these experiences are relevant towards understanding 
the nature of the security situation in Africa and effectively 
partnering with the Africans as they develop and implement solutions. A 
fundamental focus of the AFRICOM Commander's engagement should include 
careful consideration of what our partners need from the U.S. to help 
them develop to meet their stated needs. Just as EUCOM focused on 
security cooperation activities with African nations, so too will 
AFRICOM continue developing capabilities of African nations to help 
solidify our relations, achieve our mutual goals, and provide a bright 
future full of promise and opportunity.

                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges and 
opportunities that would confront you as the first Commander of 
AFRICOM?
    Answer. A fundamental focus of the AFRICOM Commander's engagement 
should include careful consideration of what our partners need from the 
U.S. to help them develop to meet their stated needs. Just as EUCOM 
focused on security cooperation activities with African nations, so too 
will AFRICOM continue developing capabilities of African nations to 
help solidify our relations, achieve our mutual goals, and provide a 
bright future full of promise and opportunity for Africans everywhere. 
I see the establishment of AFRICOM as a wonderful opportunity to 
efficiently and effectively apply the elements of U.S. national power 
in ways that help the Africans develop and implement their solutions to 
African concerns. Establishing a new command and transferring 
responsibilities to it is complex. Three unified commands and U.S. 
AFRICOM's Transition Team have been working as a team to ensure no 
disruption or confusion in the execution of on-going Department of 
Defense (DOD) efforts in Africa.
    Question. If confirmed, what plans do you have for addressing these 
challenges and opportunities?
    Answer. My goal is to make the transition of operations and 
activities to AFRICOM's responsibility as seamless as possible. I will 
reinforce the excellent work currently being done on the continent and 
the strong relationships already established. All three combatant 
commands have had extensive and positive experiences working with DOS, 
the U.S. Agency for International Development (USAID), and various 
nongovernmental organizations (NGOs). AFRICOM's exercises, training, 
and humanitarian assistance efforts across the continent must occur in 
ways that demonstrate value-added through its existence.

                         MOST SERIOUS PROBLEMS

    Question. What do you anticipate to be the most serious problems in 
the performance of the functions of Commander, AFRICOM?
    Answer. U.S. AFRICOM's contributions will be seen in terms of how 
it directly contributes to the stability, security, health, and welfare 
of the regional institutions, nations, and people of Africa. It will be 
measured in terms of the strength, viability, and sustainment of the 
programs it will be expected to carry out on behalf of the U.S. 
government. Securing adequate resources to conduct those programs will 
be one of my top priorities as commander of AFRICOM.
    Question. What management actions and timelines would you establish 
to address these problems?
    Answer. Any actions taken should be premised on better facilitating 
the activities of the U.S. Interagency. Additionally, U.S. AFRICOM's 
value added will come by listening to the needs of our African Partners 
and helping to find solutions by working with the African Union and its 
African Regional Economic Communities, our European allies and other 
partners and friends with a strong interest on the continent.

               ORIGIN AND MISSION OF U.S. AFRICA COMMAND

    Question. Please discuss the role that you have played in the 
intra-DOD discussions which led to the creation of AFRICOM.
    Answer. I participated in initial briefings to the Secretary of 
Defense and the Joint Staff concerning the potential impact on missions 
and activities of EUCOM's portion of the proposed AFRICOM AOR.
    Question. Please discuss the role that you have played in the 
ongoing discussions with the AFRICOM implementation team and transition 
team.
    Answer. On behalf of the EUCOM Commander, I served as a member of 
the executive committee monitoring the development of the AFRICOM 
Implementation Guidance that formalized the parameters, requirements, 
and timelines for the Transition Team's activities. I monitored the 
progress of the Transition Team and ensured that the Transition Team 
had adequate facilities prepared in Stuttgart so they could perform 
their mission.
    Question. What is your understanding of the mission of AFRICOM?
    Answer. AFRICOM promotes U.S. National Security objectives by 
working with African states and regional organizations to help 
strengthen stability and security in the AOR. AFRICOM leads the in-
theater DOD response to support other U.S. Government agencies in 
implementing U.S. Govermment security policies and strategies. In 
concert with other U.S. Government and international partners, AFRICOM 
conducts theater security cooperation activities to assist in building 
security capacity and improve accountable governance. As directed, U.S. 
AFRICOM conducts military operations to deter aggression and respond to 
crises.
    Question. What do you believe to be the pros and cons of 
establishing this new combatant command?
    Answer. I believe the establishment of AFRICOM will add a more 
unified focus to the continent. Furthermore, the elimination of Unified 
Command Plan boundaries within Africa will position AFRICOM well to 
establish strong and lasting habitual relationships with our African 
partners (especially with the African Union), allies, and international 
organizations operating on the continent.
    There are two aspects of one primary ``con'' associated with the 
creation of AFRICOM--the first is related to managing expectations of 
the benefits realized with a U.S. Headquarters locating to the 
Continent. The other aspect is managing the perception that a U.S. 
military headquarters signals a heavy handedness to the continent.

             ORGANIZATIONAL STRUCTURE AND CHAIN OF COMMAND

    Question. According to the Office of the Secretary of Defense, no 
final decisions have been made on the organizational structure and 
chain of command of AFRICOM.
    Please discuss how you envision the two Deputy Commanders--one DOD-
appointed and one State Department-appointed--functioning?
    Answer. The Commander of AFRICOM will have two deputies: the Deputy 
to the Commander for Civil-Military Activities (filled by a senior DOS 
Foreign Service officer) and the Deputy to the Commander for Military 
Operations (filled by a military flag officer). Both positions are 
three-star equivalents and peer equals. Each will have primary spheres 
of responsibility to work in conjunction with the other. Since a State 
Department official cannot exercise military command under title 10, 
U.S.C., the Departments of Defense and State agreed to the title of 
``Deputy to the Commander'' instead of ``Deputy Commander'' to ensure 
parallelism between both positions without implying that both positions 
have military command authority.
    The Deputy to the Commander for Civil-Military Activities (DCMA) 
will be responsible for directing the command's civil-military planning 
and programs, with emphasis on aligning U.S. AFRICOM activity with that 
of other U.S. Government departments and agencies carrying out U.S. 
foreign policy. The Deputy to the Commander for Military Operations 
(DCMO) will be responsible to implement and execute the command's 
activities, including those planned and programmed by the DCMA.
    Question. What responsibilities do you expect each deputy commander 
to have under his or her jurisdiction?
    Answer. The DCMA will be responsible for AFRICOM policy 
development, resourcing, and program assessment. The DCMA will direct 
the command's plans and programs associated with health, humanitarian 
assistance, humanitarian mine action, disaster response, and security 
sector reform.
    The DCMO will be responsible for U.S. AFRICOM operational 
implementation and execution. Additionally, the DCMO will exercise 
combatant command authority under title 10, U.S.C., in the Commander's 
absence.
    Because we wish to integrate activities and eliminate 
``stovepipes,'' both Deputies necessarily will collaborate and 
coordinate with each other on activities within their respective 
portfolios. To that end, they share responsibility to develop U.S. 
AFRICOM partnerships and capacity through the planning and execution of 
contingency and other operations (such as noncombatant evacuation, 
humanitarian assistance, disaster response and peace support); joint 
and combined training and exercises; foreign military training and 
professional development; security assistance, and security sector 
reform.
    Question. What authority, if any, will the State Department/
Civilian Deputy have over military personnel?
    Answer. Both the civilian DCMA and the uniformed DCMO have the 
authority to direct activities within their appropriate areas of 
responsibility. Both Deputies will have supervisory authority for 
civilian and military personnel in those subordinate offices and 
directorates for which the Deputies are responsible. Because the 
civilian DCMA cannot hold military command authority under title 10, 
U.S.C., the military DCMO will exercise combatant command in my 
absence. The Departments of Defense and State are comfortable with this 
arrangement.
    Because U.S. AFRICOM will have non-DOD personnel ``seconded'' or 
``detailed'' to the command as well as others serving in a traditional 
liaison role, the command, DOD and the appropriate corresponding 
department of agency will need to establish agreements regarding the 
relationship between the command and the integrated non-DOD staff 
member. We envision a similar arrangement to that already in place 
between the Departments of Defense and other departments and agencies 
for the Foreign Political Advisor (POLAD) and the representatives to 
the JIACG. I do not believe that any statutory changes are necessary to 
support either position.
    Question. What authority, if any, will the DOD/Military Deputy have 
over civilian personnel?
    Answer. Interagency civilian personnel assigned to AFRICOM will 
have authorities established in agreements between the DOD and the 
respective agency.
    Question. Do you believe any statutory changes are required to 
facilitate the proper functioning of these deputy commanders?
    Answer. The Departments of Defense and State have carefully 
reviewed the roles, functions, and responsibilities of both deputies 
and are confident that current authorities under title 10, U.S.C., are 
adequate to support the respective duties and responsibilities for 
AFRICOM. AFRICOM will be in a better position to evaluate statutory 
sufficiency and, if appropriate, recommend any revisions or changes in 
the coming months.
    Question. If confirmed, will you maintain on your staff the 
position of a State Department POLAD? If so, why? If not, why not?
    Answer. Yes. I view the roles and responsibilities of a senior 
POLAD as vital to the successful completion of the commander's mission. 
These include providing advice on political ramifications of plans, 
operations, and crisis response; assisting in representation with U.S. 
Ambassadors and foreign officials within the AOR; and keeping the 
commander informed on relevant authoritative foreign policy guidance. 
The addition of the DCMA position in AFRICOM will not duplicate these 
responsibilities.
    Question. Other U.S. combatant commands are staffed by permanently 
assigned active-duty and civilian personnel. It is the committee's 
understanding that the Department plans to follow the Combined Joint 
Task Force--Horn of Africa (CJTF-HOA) staffing model and use, almost 
exclusively, short-term rotational personnel to staff the AFRICOM 
headquarters.
    In your view, do you think this staffing model is the most 
effective one, and if so, why?
    Answer. Permanently assigned active duty and civilian personnel 
will be assigned to AFRICOM.
    Question. In briefings provided to the committee, the Department 
has indicated that civilians from a number of U.S. Government 
departments and agencies will be detailed to AFRICOM.
    What role do you envision these individuals playing in the daily 
operations of AFRICOM?
    Answer. AFRICOM's guiding principle will be to ensure coordination 
of its activity with other U.S. Government departments and agencies, 
and, as appropriate, with foreign governmental, international, non-
governmental, private and profit organizations, at early stages of the 
planning and execution cycle. In order to enable this coordination, 
AFRICOM headquarters' intent is to have an integrated staff of 
permanently assigned DOD (military and civilian) and non-DOD U.S. 
Government department and agency personnel, as well as liaison officers 
and staff from foreign military and civilian organizations and AFRICOM 
liaison personnel with duty at selected external organizations.
    Non-DOD U.S. Government department and agency staff positions 
within AFRICOM headquarters will be at three levels: senior leadership 
and management positions (such as the Deputy to the Commander for 
Civil-Military Activities and the directors or deputy directors of 
headquarters offices or directorates); senior experts in advisory or 
liaison capacities (such as the Foreign Policy Advisor, the Development 
and Humanitarian Assistance Advisor, and the senior Treasury Department 
representative), and subject-matter experts integrated into staff 
positions throughout headquarters offices and directorates.
    Senior expert advisors and liaison officers will represent their 
parent organizations to AFRICOM, advise the Commander and staff 
regarding parent organization and functional issues, communicate 
AFRICOM and parent organization issues across functional activities, 
and fully participate in AFRICOM headquarters planning and execution 
support. They derive their authority from their parent organizations.
    Subject-matter experts from non-DOD U.S. Government departments and 
agencies will be detailed or ``seconded'' to AFRICOM. These subject-
matter experts are embedded within the headquarters staff at the 
directorate level and below in both supervisory and action officer 
positions after coordination with the providing organization. They 
derive their authority from the AFRICOM Commander as exercised within 
the organizational structure. Embedded officers will be fully qualified 
to assume the duties and responsibilities of the position prior to 
joining the AFRICOM staff. These officers contribute unique 
perspectives at the inception of AFRICOM planning and ensure that 
AFRICOM activities are compatible and integrated with those of other 
U.S. Government departments and agencies.
    Question. Will U.S. Ambassadors to African countries maintain chief 
of mission authority over all U.S. Government activities in the 
countries to which they are posted, including military relations, once 
AFRICOM is in place?
    Answer. Yes. U.S. Ambassadors will maintain chief of mission 
authority over all U.S. Government activities in their countries. As 
AFRICOM Commander, I will ensure that my senior subordinate leaders, 
and my representatives in Embassies (Office of Security Cooperation 
Chiefs) and I will ensure all military relations, activities, etc. are 
closely coordinated with country teams. We will closely coordinate all 
our activities with embassy chiefs of mission.
    Question. In your opinion, how will AFRICOM differ from other 
regional combatant commands?
    Answer. The President directed DOD to establish AFRICOM, whose 
focus will be to build a stable security environment that will enable 
Africans to pursue broader goals, such as economic security. We believe 
that the security aspect--one part of the ``three-pronged'' approach--
should be accomplished under U.S. DOD leadership. AFRICOM will support 
the other two prongs, with the State Department conducting diplomacy, 
and the Agency for International Development carrying out development 
work. AFRICOM will also have elements and personnel from a variety of 
government organizations, which will enhance its ability to provide 
support in these areas.
    Question. If confirmed, would you recommend that AFRICOM include 
Service component commands in a manner similar to other regional 
combatant commands?
    Answer. I believe the eventual structure of the Service components 
should be a reflection of the scope of missions assigned. We are still 
developing the concept of Service component commands for AFRICOM.

                       U.S. POLICY TOWARDS AFRICA

    Question. What role, if any, do you expect to play, if confirmed, 
in promoting U.S. public diplomacy in Africa?
    Answer. AFRICOM will play a supporting role in advancing U.S. 
public diplomacy on the continent.
    Question. What role, if any, do you expect AFRICOM to play in 
helping to coordinate U.S. diplomatic, foreign assistance, economic, 
and military goals and activities?
    Answer. AFRICOM will play a supporting role in the advancement of 
U.S. diplomatic, foreign assistance, and economic goals. It will play 
the leading role in the advancement of U.S. military goals and 
activities.
    Question. Some have asserted AFRICOM is simply an American effort 
to protect U.S. access to gas and oil; to fight terrorists and Islamic 
radicals; and to counter China's interest and activism.
    How do you respond to these assertions?
    Answer. AFRICOM will be primarily focused on conducting security 
cooperation to build partnership capacities in areas such as 
peacekeeping, maritime security, border security, counterterrorism 
skills, and as appropriate supporting U.S. Government agencies and 
implementing other programs that promote regional stability.

                  AFRICA-SPECIFIC SECURITY CHALLENGES

    Question. Do you believe AFRICOM should address Africa-specific 
security challenges, such as preventing the use of child soldiers and 
countering the role of civil militias and other armed, nonterrorist 
elements in conflict-prone countries? If so, how?
    Answer. We can help our African partners address these kinds of 
African-specific security challenges. Fostering a fundamental respect 
for the rule of law should not stop within the civilian realm. By 
capitalizing on our military relationships throughout the continent, 
AFRICOM will be able to work with partner nation militaries as a 
supporting role to the efforts of the DOS in addressing these problems. 
By talking to African leaders and gaining an understanding of the depth 
and the nature of these problems, and using an interagency approach we 
can help build African capacities to deal with these challenges.

                                HIV/AIDS

    Question. How much success has DOD had in efforts to counter AIDS 
in African militaries?
    Answer. DOD is a major player in the HIV/AIDS Interagency Country 
Core Team with focus on the foreign militaries. DOD prevention efforts 
are reducing the stigma associated with HIV/AIDS and effecting 
behavioral changes needed to reduce HIV prevalence. In the past year, 
DOD reached 378,000 with prevention messages; counseled and tested 
87,000; trained 2,500 on HIV policy, 9,000 peer educators, 2,400 
medical staff; supported 280 counseling and testing centers, 50 
laboratories, 26,000 on anti-retroviral treatment.
    Question. If confirmed, how, if at all, would you like to see such 
efforts increased or programmatically altered? If so, how?
    Answer. AFRICOM will continue to build on current DOD efforts in 
Africa. We will continue our focus on prevention, capacity building, 
and support our foreign military in HIV policy development to ensure 
infrastructure is in place for HIV testing and counseling.
    President's Emergency Plan for AIDS Relief (PEPFAR) funding 
directed towards the foreign militaries has increased from $9 million 
in 10 countries in 2004, to $43 million in 20 countries in 2007. 
However, the DOD Executive Agent for DOD HIV/AIDS Prevention Program 
(DHAPP) efforts with the foreign militaries, the U.S. Naval Health 
Research Center, supports over 20 countries that are not receiving 
PEPFAR funding. DHAPP funding through congressional plus-ups to the 
Defense Health Program averaged $3 million annually. In 2007, DHAPP was 
unfunded resulting in uncertainties with DOD-initiated programs in 
these non-PEPFAR countries. Continued congressional support will ensure 
DHAPP's continuity and program success.
    Question. In your view, should this effort be lead by DOD or by 
other elements of the U.S. Government?
    Answer. DOD is a critical member of the Interagency team led by the 
DOS, Office of the Global AIDS Coordinator that synchronizes the U.S. 
Government response to HIV/AIDS pandemic. DOD should continue to be the 
lead on the U.S. Government HIV/AIDS prevention effort with the foreign 
militaries. The success of our partnerships with the African foreign 
military in the fight against HIV/AIDS will enhance national security 
and regional stability.

                           DEVELOPMENT AGENDA

    Question. What role would you expect AFRICOM to play in the area of 
humanitarian assistance?
    Answer. AFRICOM will play a supporting role. The U.S. military is 
not an instrument of first resort in providing to humanitarian 
assistance but supports civilian relief agencies. We recognize the 
significant role and capabilities of USAID as the principal U.S. agency 
extending assistance to countries responding to and recovering from 
natural or manmade disaster. The U.S. military may be involved when it 
provides a unique service; when the civilian response is overwhelmed; 
and civilian authorities request assistance. The USAID Office of 
Foreign Disaster Assistance validates all such requests for U.S. 
military assistance. Our role in this context will not change. We will 
play the supporting role when necessary and appropriate. The difference 
is that this command will be better prepared to respond to such 
eventualities and to do so better. We will have USAID staff within the 
command in order to help make sure that such responses when appropriate 
and necessary are well-planned and executed.
    Question. What steps, if any, do you expect AFRICOM to take to 
enhance ongoing U.S. Government humanitarian assistance programs?
    Answer. There will be a robust Humanitarian Assistance/Disaster 
Relief branch within the command focused on Africa, which will include 
the participation of USAID staff. This will enable better planning and 
coordination of military support to humanitarian assistance efforts.
    Question. In your view, what role, if any, should AFRICOM have in 
addressing ongoing political conflicts or humanitarian crises such as 
those in the Democratic Republic of the Congo, Zimbabwe, Ethiopia, 
Somalia, Sudan, Chad, and the Central African Republic?
    Answer. AFRICOM will take an appropriate role as directed by U.S. 
policy. A significant number of these existing crises will require 
active participation on the part of African organizations, countries, 
and leaders. AFRICOM will leverage traditional Theater Security 
Cooperation programs to develop African capacity and capability to 
respond to existing crises and hopefully prevent new ones from 
emerging.
    Question. In what program or policy areas not strictly related to 
military matters, if any, do you believe AFRICOM should play a role?
    Answer. AFRICOM is contemplated as playing a larger role in 
development activities than a traditional combatant command, in close 
coordination with agencies more directly involved in developmental 
activities.
    Question. What is your understanding of the role AFRICOM will play 
in the area of development activities, which are overseen by USAID?
    Answer. The command will play a supporting role, as required. We 
recognize that USAID is the principal agency extending assistance to 
countries recovering from disaster, trying to escape poverty, and 
engaging in democratic reforms; DOD plays a supporting role for USAID 
development and humanitarian objectives.
    Question. How do you expect AFRICOM would function in countries 
without USAID missions?
    Answer. In countries where there is no USAID presence, we would 
further strengthen our ties with the regional programs, work with the 
country team, as well as rely on USAID staff within the command to 
assist in the appropriate design, coordination, and execution of 
programs. USAID has three regional programs that cover many of the 
other countries where there are no missions. CJTF-HOA, for example, has 
been able to forge strong relationships throughout their area of 
operation with these regional programs in support of efforts in 
countries where USAID does not have a physical presence.
    Question. How will AFRICOM coordinate its activities with those of 
USAID?
    Answer. AFRICOM will provide one African focused organization to 
communicate and coordinate with USAID. USAID will have several staff 
based in the command in order to further facilitate communications and 
coordination, as well as bring the necessary expertise. The 
establishment of the command will greatly facilitate USAID 
communication and coordination with the DOD concerning Africa.

                    U.S. AFRICA COMMAND HEADQUARTERS

    Question. Since the Secretary of Defense announced in February 2007 
the intention of the DOD to create a U.S. military combatant command 
for Africa, there has been a great deal of debate of the location 
regarding this new combatant command. What kind of headquarters 
structure do you believe is most appropriate for AFRICOM? A strong 
central location? A hub-and-spoke approach?
    Answer. We are looking at all options and will determine 
appropriate options after additional analysis and dialogue with 
governments on the continent.
    Question. What are the potential overseas basing implications 
related to the establishment of AFRICOM?
    Answer. We need to measure the acceptance of headquarters locations 
in terms of the African Union (AU), subregional organizations, and 
individual nations--we need to be welcomed. Furthermore, our presence 
on the continent implies a long-term commitment. We will better 
understand this once additional analysis is concluded.
    Question. Are permanent bases envisioned as part of the new 
command?
    Answer. Permanent bases are not envisioned as part of the command.
    Question. What criteria will be used to determine the size, 
location, and management of these locations, including the site of a 
permanent headquarters somewhere on the continent?
    Answer. A site selection criteria was developed in coordination 
with the DOS. Some of the criteria includes: political stability; 
security factors; access to regional and intercontinental 
transportation; availability of acceptable infrastructure; qualify of 
life; proximity to the AU and regional organizations; proximity to U.S. 
Government hubs; adequate Status of Forces Agreement. The transition 
team has used these criteria to narrow down potential sites. Those 
potential sites have been briefed to the DOS informally and we have 
begun dialogue on the advantages and disadvantages of those sites.
    Question. What, if any, additional cooperative security locations 
does DOD hope to establish in Africa? What is the estimated cost of 
establishing and operating these locations?
    Answer. Once established, AFRICOM will conduct in-depth analysis to 
determine if and where cooperative security locations are required to 
meet logistics and Theater Security Cooperation engagement requirements 
across the African continent.
    Question. What, if any, plans does DOD have to expand the size of 
its military presence and/or facilities (temporary or permanent) at 
Camp Lemonier in Djibouti?
    Answer. AFRICOM plans to utilize Camp Lemonier as an enduring 
Forward Operating Site. There are no current plans to expand the U.S. 
presence at Camp Lemonier. Once established, AFRICOM will conduct 
analysis to determine the appropriate level and capability of assigned 
personnel and facilities in order to meet strategic mission 
requirements.

                          SECTION 1206 FUNDING

    Question. Section 1206 of the National Defense Authorization Act 
for Fiscal Year 2006, as amended, established a new program that gives 
the DOD the authority to spend, in coordination with the DOS, up to 
$300 million of its operations and maintenance funds to train and equip 
foreign militaries to undertake counterterrorism or stability 
operations.
    What is your assessment of the section 1206 program's impact in the 
AFRICOM AOR?
    Answer. In fiscal year 2006, $11 million of section 1206 money was 
provided to build intelligence-sharing capacity for Pan-Sahel 
countries, along with maritime domain awareness systems for countries 
in the Gulf of Guinea. In Sao Tome and Principe, a basic Regional 
Maritime Awareness Capability has been established. The full-up 
capability is on schedule for completion prior to December 31, 2007. 
The installation in Nigeria was delayed several months due to the 
recent change in government, but the program has resumed and is making 
progress. In the end, these nations will own, operate, sustain, and be 
able to propagate this capability without external support. This 
distributed partnership in maritime awareness will foster localized 
ownership of regionally and internationally shared maritime security.
    The fiscal year 2006 section 1206 program also included the Multi-
National Informational Sharing Initiative (MISI), an information 
sharing capacity building program in Trans-Sahara Africa--specifically 
Chad and Nigeria. This program greatly enhances the partner nation's 
ability to respond to humanitarian crises and other threats. 
Additionally, the technology will allow greater interoperability among 
the U.N., U.S., and African agencies positioned to address these 
crises.
    For fiscal year 2008, section 1206 programs will play an even 
larger role because AFRICOM's Foreign Military Financing budget has 
been reduced to $16 million.
    Question. Recent projects funded under section 1206 authorities 
have provided assistance, as part of the larger East Africa Regional 
Security Initiative, to Ethiopia and Chad, countries with poor human 
rights records and a history of suppressing political opposition.
    Why is it beneficial to provide 1206 assistance to these countries?
    Answer. Security Cooperation programs remain the cornerstone of our 
strategy to promote common security, which ultimately supports national 
security objectives. Section 1206 authority is one of the many security 
cooperation programs used to build relationships with countries like 
Chad and Ethiopia that support U.S. strategic interests, enhance 
partner security capabilities, and improve information exchange and 
intelligence sharing.
    Question. If confirmed, what metrics would you use to assess the 
relative costs and benefits of proposals for 1206 funding?
    Answer. Successful section 1206 proposals are conceptualized in 
collaboration with other U.S. agencies, meet urgent and emergent 
regional security needs, and compliment existing interagency security 
cooperation activities.

                          SECTION 1207 FUNDING

    Question. Section 1207 of the National Defense Authorization Act 
for Fiscal Year 2006 authorized the Secretary of Defense to use or 
transfer defense articles, services, training, or other support to the 
Secretary of State to provide immediate reconstruction, security, or 
stabilization assistance to a foreign country for the purpose of 
restoring or maintaining peace and security in that country.
    What is your assessment of the section 1207 program's impact in the 
AFRICOM AOR?
    Answer. While there are currently no 1207 being executed in Africa, 
funds are being pursued for fiscal year 2008 to support programs in 
Somalia, Mali, and Niger.

                          SECTION 1208 FUNDING

    Question. In section 1208 of the National Defense Authorization Act 
for Fiscal Year 2005, Congress gave DOD a 2-year authority to train and 
equip indigenous forces fighting alongside U.S. special operators.
    What is your assessment of this program?
    Answer. The section 1208 authority gives us very important latitude 
in our pursuit of Operation Enduring Freedom-Trans-Sahara (OEF-TS) 
objectives in where more traditional security assistance and military-
to-military engagement authorities don't readily apply. We are 
currently using the program to develop an indigenous intelligence 
capacity in Niger. This capacity will be focused in the northwest 
region of the country and will fill a critical capabilities gap of the 
Nigerian military.
    Question. If confirmed, how would you like to see the program used 
in Africa?
    Answer. We would continue to use the program in a fashion similar 
to the concept we are implementing in Niger. We are developing similar 
concepts for specific regions of Mali and Mauritania, and are 
considering others in Chad and Nigeria. I believe the flexibility this 
authority provides will remain useful for OEF-TS in particular for a 
number of years.

                   NORTH ATLANTIC TREATY ORGANIZATION

    Question. Since July 2005, the North Atlantic Treaty Organization 
(NATO) has helped to provide air transport for peacekeepers and 
civilian police from African troops contributing countries into and out 
of Darfur. NATO has also provided training to AU officers, mainly on 
how to run a multinational military headquarters and manage information 
effectively.
    How would you envision AFRICOM interacting with NATO on operations 
within the African AOR?
    Answer. AFRICOM could assist NATO efforts on the African continent 
by ensuring close coordination of U.S. contributions and capabilities 
to NATO operations and training. NATO is uniquely suited to allow 
AFRICOM access to European interests and capabilities and experience on 
the African continent. Where authorized and appropriate, AFRICOM can 
provide logistical support to NATO, professional military training and 
engagement in conjunction with and other security cooperation and 
outreach efforts. If confirmed, I will strongly support continued 
participation of NATO's ongoing Mediterranean Dialogue with North 
African nations.

                   UNITED NATIONS MISSIONS IN AFRICA

    Question. The United Nations currently has six U.N. peacekeeping 
missions in Africa. The U.N. also maintains over 50,000 peacekeeping 
troops and police in Africa, and this does not include the expanded 
U.N. Mission in Sudan.
    What role do you see AFRICOM playing vis-a-vis these U.N. 
peacekeeping missions?
    Answer. U.N. peacekeeping missions need professionally trained 
peacekeepers. The African Union's stated policy is to man as many 
African peace support operations with African peacekeepers. To support 
both of these objectives, AFRICOM will continue the work begun by EUCOM 
and CENTCOM in assisting in the training of African peacekeepers. 
AFRICOM will work closely with the State Department to train African 
peacekeepers through the State Department's African Contingency 
Operations Training and Assistance (ACOTA) program.
    Would you advocate expanding the U.S. military's role in support of 
U.N. peacekeeping missions in Africa?
    Answer. The decision as to the U.S. Government's level of 
participation in any U.N. peacekeeping mission will be made at the 
highest levels of our government. If confirmed, my objective will be to 
build a unified command that will respond to the level of participation 
required to support U.N. peacekeeping missions in Africa.

                   GLOBAL PEACE OPERATIONS INITIATIVE

    Question. In 2004, the President announced the Global Peace 
Operations Initiative (GPOI). The goal of the initiative was to train 
75,000 peacekeepers.
    What role do you believe AFRICOM should have in support of this 
initiative?
    Answer. With State Department as the executive agent, GPOI expects 
to train approximately 40,000 troops in AFRICOM's AOR. AFRICOM will 
continue involvement in GPOI and ACOTA programs through existing 
coordination mechanisms with State Department-hosted GPOI steering 
conferences. Given title 10 and 22 funding guidelines and current 
operations tempo, AFRICOM will also continue to provide small military 
teams for special mentoring assistance to State Department-contracted 
ACOTA training events.
    Question. What is the prospective role of AFRICOM in ensuring that 
GPOI is successful in Africa?
    Answer. The State Department's ACOTA program, as the GPOI 
peacekeeping training arm for Africa, is highly successful and is 
increasing its program strength and effectiveness on the continent. 
AFRICOM will aggressively work with State Department to resource 
military mentors for ACOTA training events, and will continue to reach 
out to European nations interested in partnering with peacekeeping 
training.
    Question. In your opinion, how quickly should GPOI be able to 
provide basic deployment equipment packages to countries that are 
willing to deploy troops immediately to current peacekeeping 
operations, as in Darfur, but lack the resources to do so?
    Answer. Through the ACOTA program, State Department maintains 
standing contracts to provide training equipment for long-term self-
sustained training. These contracts also provide basic trainee 
equipment packages for individual soldiers. These packages can be used 
during peace support operations deployments. Operational deployment-
specific equipment falls under non-ACOTA GPOI funding. However, the 
equipment needs of Troop Contributing Countries for peace support 
operations in Darfur and other anticipated operations dwarf GPOI's 
ability to provide the magnitude of equipment required to satisfy 
United Nations Contingent Owned Equipment requirements.
    Question. In your opinion, are GPOI training efforts providing 
well-trained peacekeepers for U.N. and other operations?
    Answer. I have personally witnessed the effectiveness of ACOTA 
training in Rwanda as they prepared for their deployment in support of 
the AU mission in Darfur. The troops I observed were well-trained and 
well-equipped.
    U.S.-sponsored peacekeeping training is responsible for the 
majority of the approximately 17,000 African peacekeepers serving in 
on-going peace support operations. Most partners have incorporated 
ACOTA trainers into their long-term training programs to monitor and 
observe indigenous training provided by GPOI-trained instructors. The 
ACOTA program provides training and certifies instructors, which will 
be critical for future United Nations Chapter VI and VII peace support 
operations.

                TECHNOLOGY SUPPORT FOR AFRICOM MISSIONS

    Question. The defense research and technology community has 
developed a number of capabilities that are potentially supportive of 
AFRICOM's missions--including vaccines to combat infectious diseases, 
language translation systems, and cultural modeling, simulation tools, 
and wargames.
    What specific technology-based capabilities do you feel need to be 
developed or improved in order to best support AFRICOM's missions?
    Answer. There are several capabilities that need to be developed to 
best support AFRICOM missions. As stated earlier, promoting stability 
among African nations will be a priority for AFRICOM. The size of 
Africa, the length of its coast line, and the limited interior 
infrastructure challenges the African nations in their ability to 
maintain adequate air, land, and maritime awareness. To help address 
this shortfall, I would like to see development of technologies that 
provide adequate national and regional awareness of borders, coast 
lines and air corridors. To support regional cooperation, I believe we 
need to develop technology that allows for the national information 
collected to be shared regionally. For these technologies to be adopted 
by African nations, they need to be affordable, robust, and easy to 
use.
    Another major technology challenge for AFRICOM will be the 
requirement, while responding to disasters or contingencies, to deliver 
large amounts of humanitarian supplies and/or peace keepers quickly. 
The current U.S. strategic lift system is limited in its capability to 
deliver forces and support to areas that lack mature logistical 
infrastructure. Technologies that would deliver units and supplies 
anywhere in Africa within 3 to 5 days, independent of air and sea ports 
or a road network, would allow AFRICOM to be responsive to shaping 
opportunities by providing pre-hostility support, or reaching victims 
of a natural disaster without having to wait for seaports, airports, or 
roadways to be cleared or repaired.
    Question. If confirmed, how would you work with the defense 
research and acquisition community to ensure that they are aware of 
those needs and supportive of AFRICOM's missions?
    Answer. EUCOM has already actively engaged the research and 
acquisition community to develop solutions for Africa-related 
capability shortfalls. The community is aware of the requirement sets 
required to support AFRICOM missions. These Concept Development and 
Experimentation efforts and initiatives will ultimately transfer to 
AFRICOM according to individual transition strategies.

                   TECHNOLOGY COOPERATION WITH AFRICA

    Question. The DOD makes use of international research and 
technology cooperation both to increase military capabilities, 
especially for coalition and multinational operations, and to expand 
and improve ties to friendly nations. Examples include work on advanced 
technologies with South Africa and cooperative research activities in 
Egypt and Kenya.
    What opportunities do you see for the Department to expand its 
research and technology cooperation activities in Africa?
    Answer. The U.S. has developed research and development (R&D) 
relationships with several African nations and AFRICOM will seek to 
lead continued U.S. efforts in this arena. In our quest to develop 
``African systems for Africans'', it behooves us to partner with 
national industries to jointly develop technologies/systems to meet 
their requirements. Our African partners have a strong desire to 
operate and maintain their own systems, without any outside influences. 
Early R&D and acquisition partnering will help facilitate initial 
African acceptance and set the foundation for long-term transition to 
African owned and operated systems.
    Question. What benefits to AFRICOM's ability to accomplish its 
missions might be accrued if the Department enhances its technology 
cooperation activities in Africa?
    Answer. Building Partnership Capacity within the African regions is 
central to AFRICOM's strategic vision. By providing innovative 
technology, new concepts, and mentoring to aid information sharing, we 
directly influence security and stability of partner nations and 
surrounding regions.

                        INTERAGENCY COORDINATION

    Question. National Security Presidential Directive 44 (NSPD 44) 
assigns the DOS the responsibility to coordinate and lead integrated 
U.S. Government efforts, involving all U.S. departments and agencies 
with relevant capabilities, to prepare, plan for, and conduct 
stabilization and reconstruction activities. NSPD 44 also states that, 
when relevant and appropriate, reconstruction and stabilization 
contingency plans and missions will be coordinated with U.S. military 
contingency plans to ensure harmonization with any planned or ongoing 
U.S. military operations.
    Are the new organizational constructs envisioned for AFRICOM, in 
whatever form is eventually decided upon, going to be able to 
adequately address capacity shortfalls in non-DOD organizations?
    Answer. It will not be the specific task of AFRICOM to identify the 
capacity shortfalls in non-DOD organizations. The envisioned 
organizational construct for AFRICOM should provide insight into the 
coordinated capacity of various organizations in meeting our shared 
objectives.
    Question. If not, what other steps are needed, in your view, to 
address this issue, and how should they be accomplished?
    Answer. The purpose of U.S. AFRICOM is to more appropriately 
organize the DOD to serve the continent of Africa due to its growing 
strategic importance. AFRICOM will provide a single point of response 
for DOD when it comes to African challenges.
    Question. What do you foresee as the main bureaucratic or 
logistical obstacles to the success of the interdisciplinary-
interagency approach planned for AFRICOM?
    Answer. Once full and complete mission analysis is accomplished 
with an approved mission statement for AFRICOM, the work to enter 
agreements and assign resources to implement the multi-disciplinary 
approach will take greater shape.
    Question. How do you plan to address these obstacles?
    Answer. We have been working to develop agreements to share with 
various agencies and departments that may want to join the AFRICOM 
team. We continue to reach out to our interagency partners to conclude 
agreements.
    Question. U.S. Southern Command (SOUTHCOM) formed Interagency 
Directorate (J9) to spearhead coordination between its interagency 
partners and to address quickly emerging challenges facing Central and 
South America and the Caribbean. Some of the command's interagency 
goals include: improving synchronization of operations and activities 
between SOUTHCOM and other U.S. Government organizations operating in 
this part of the world to create a collaborative, effective, and 
efficient command, engage interagency partner decisionmakers, and 
integrate personnel from these agencies on a full time basis into the 
SOUTHCOM staff. This model and its purpose seems consistent with the 
intentions of AFRICOM.
    What is your assessment of the J9 model? Do you believe it would be 
appropriate for AFRICOM?
    Answer. We have looked at SOUTHCOM's J9 model and have already 
begun to incorporate some of the good ideas of the J9 into the 
Partnership Division of our Outreach Office. For example, we are 
designing our Partnership Division as the ``portal'' to AFRICOM for the 
interagency and outside partners, similar to what SOUTHCOM has done 
with its J9. We have also met with members of U.S. Northern Command's 
(NORTHCOM) JIACG to hear the lessons they learned while standing up 
their JIACG.

               TRANS-SAHARA COUNTERTERRORISM PARTNERSHIP

    Question. The Trans-Sahara Counterterrorism Partnership (TSCTP) is 
a State Department-led initiative that seeks to eliminate and prevent 
terrorist sanctuaries in the Trans-Sahel region of Africa.
    Would you include this program as a part of AFRICOM's stability 
operations?
    Answer. Yes. Military power alone can not address the myriad of 
issues facing the African continent today. The U.S. Government will 
need to mobilize all facets of national power to counter the spread of 
instability by assisting our partners overcome the economic, political, 
and environmental conditions that have historically weakened their 
institutions, thereby allowing African nations to concentrate on the 
needs, aspirations and desires of the people. Only through the building 
of sustainable relationships fostered by programs like the TSCTP which 
fuses the capabilities of multiple U.S. Government agencies together 
can we build the cooperation that will assist the African states in the 
development of a stable and prosperous Africa. To contain and 
ultimately eliminate violent extremism in the Trans-Sahara the conflict 
will not be waged on the battlefield, but on the airwaves and in the 
hearts and minds of the Trans-Saharan populace. TSCTP has broadened its 
focus to take the battle to the enemy on the social, economic and 
political fronts. Spurring economic development, expanding educational 
opportunities, building health clinics, providing food assistance and 
promoting good governance are all combined to be part of a long-term 
public diplomacy and development campaign against radicalism.
    Question. How do you expect the TSCTP program will be coordinated 
among DOD, State and USAID participants within AFRICOM?
    Answer. As an established program, TSCTP continues to demonstrate 
the value of forging new processes in furthering cooperation among the 
entire U.S. Government interagency community, not just that between 
DOD/DOS and USAID and I anticipate that it will continue to utilize the 
methods that presently exist. It is my desire that this program will 
continue its great work at AFRICOM as it is presently doing for EUCOM 
and will be a template for other interagency cooperation programs 
within AFRICOM.
    Question. What role do you foresee for the African Union or other 
African organizations in stability operations in Africa, and how can 
the new command best facilitate that role?
    Answer. The nations of Africa and the organizations they have 
formed to promote security and cooperation on the continent will carry 
the lion's share of the burden when it comes to stability operations 
and indeed all missions in Africa. AFRICOM is in a prime position to 
assist building the military capabilities of those nations that strive 
to take on greater regional responsibility through military to military 
training and exercises. Additionally, when directed, the command will 
be prepared to support African led operations, such as the airlift 
provided for the AU Mission in Sudan (AMIS). In general, by being a 
committed and focused partner, the new command will work with African 
nations and their organizations as they shoulder the demands of 
maintaining security and prosperity on the continent.
    Question. What role, if any, would you expect AFRICOM to play in 
helping determine how agency resources will be allocated?
    Answer. It is the intent of AFRICOM to work with our inter-agency 
partners in ensuring full transparency of each of our programs, thus 
leading to increased harmonization and effectiveness of our collective 
efforts.

                          INTELLIGENCE ISSUES

    Question. In December 2004, Congress passed the 2004 Intelligence 
Reform Act, which created the National Counterterrorism Center (NCTC) 
and charged it with conducting ``strategic operational planning'' to 
combat terrorist threats to U.S. interests at home and abroad. NCTC has 
taken the lead on developing the National Implementation Plan, a 
detailed, interagency plan for combating terrorism, which assigns roles 
and responsibilities to departments and agencies across the government.
    What is your understanding of the role of the NCTC with respect to 
AFRICOM?
    Answer. With regard to AFRICOM, the NCTC develops strategic 
guidance and the national, interagency objectives and tasks on counter 
terrorism matters which AFRICOM, along with our interagency partners on 
the continent, are responsible for implementing.
    Question. How will AFRICOM's responsibilities for integrating 
military and civilian planning interface with NCTC's responsibility for 
integrating military and civilian planning?
    Answer. AFRICOM, along with these other Departments and agencies, 
has an obligation under NSPD-46 to work together very closely to ensure 
that all of our plans and activities are coordinated, synchronized and 
mutually reinforcing. It will be my priority to ensure that AFRICOM 
planning is fully coordinated and integrated with our interagency 
partners. The AFRICOM staff structure and integration of interagency 
personnel in the Command is designed specifically toward this end.
    Question. How are the specific agency roles and responsibilities 
outlined in the National Implementation Plan integrated with AFRICOM's 
efforts to bring stability to Africa?
    Answer. A key underpinning for a more stable Africa is to encourage 
all segments of the population to reject terrorism as a political 
instrument. This requires that we build the trust and confidence of 
African governments and populations that only comes through the 
development of habitual relationships and implementation of programs 
and initiatives which promote secure environments and political and 
economic stability. It necessarily requires U.S. involvement across the 
diplomatic, information, military and economic spectrum by the various 
U.S. Departments engaged in Africa. Such engagement is already 
occurring. However, for AFRICOM's efforts to be most effective, and for 
our collective interagency efforts to be mutually reinforcing in 
promoting stability, we must plan and implement our programs with a 
high degree of routine coordination and full knowledge of programs and 
capabilities all Departments bring to the African continent. How we 
integrate AFRICOM's efforts with our interagency partners will be 
through the development and implementation of specific counterterrorism 
and security cooperation plans which are fully coordinated with the 
other agencies and their planning efforts.

                     NONGOVERNMENTAL ORGANIZATIONS

    Question. Africa has one of the most largest and most mature NGO 
communities in the world. In many cases, the NGOs are the first 
responders in Africa.
    If confirmed, how would you expect to coordinate AFRICOM's 
operations with these organizations?
    Answer. AFRICOM will establish a robust relationship with the U.S. 
Agency for International Development. AFRICOM will reach out to the NGO 
community in Africa through our Partnership Division in our Outreach 
Office. As we establish and maintain these key relationships we will 
continue to coordinate our efforts with USAID representatives within 
the command. We have learned from our recent efforts in the Horn of 
Africa and elsewhere in Africa that there is a broad range of NGO and 
community-based activities taking place. These activities bear 
significant short-term and long-term results.

                          STABILITY OPERATIONS

    Question. DOD has established policy designating stability 
operations as a core U.S. military mission and directing that they 
[stability operations] be prioritized comparable to combat operations. 
The directive implementing this policy assigns the Commanders of the 
Geographic Combatant Commands the responsibility to engage relevant 
U.S. Departments and Agencies, foreign governments and security forces, 
International Organizations, NGOs, and members of the private sector in 
stability operations planning, training, and exercising, as 
appropriate.
    What type of guidance and specific steps do you believe are 
necessary for combatant commanders to effectively coordinate and 
integrate planning with State, USAID, other U.S. agencies and 
organizations, and multinational partners?
    Answer. I think we agree with the premise that there needs to be 
better interagency cooperation that facilitates the use of all aspects 
of national power. This involves more than just establishing 
headquarters, it involves a campaign based, comprehensive approach in 
which all interagency players are involved in complex planning and 
execution. A campaign, by definition, is a number of disparate actions 
and activities that are coordinated to realize a singular end state. 
Campaigns require authorities and funding--which come from the 
executive branch and Congress.
    Stability operations planning must be accomplished from inception 
by a full interagency team. This prevents planning in a vacuum and 
avoids the situation where a finalized and signed plan is passed on to 
a partnering U.S. Government agency which cannot fulfill the roles and 
responsibilities assigned in the plan. Finally, field outreach to the 
embassies, USAID staff, and staff of other U.S. Government agencies 
will aid significantly in coordination.
    Question. What steps, staff, and resources are needed to establish 
an interagency team within AFRICOM that can routinely and actively 
contribute to DOD's operational planning?
    Answer. We need people across the interagency assigned to AFRICOM 
willing to be consistently engaged in the planning process--instead of 
a military staff with interagency representatives only for perfunctory 
planning, AFRICOM needs experienced interagency planners.
    Another way of approaching this issue is to establish an 
interagency planning school or curriculum which looks at campaign 
planning from the interagency perspective. From there, we need to 
codify a process for interagency campaign design. This process needs to 
be a cooperative effort that goes beyond DOD. My hope is that this 
concept will engender a productive dialogue that produces effectual 
change that the military and our interagency partners can make in order 
to improve interagency cooperation and teamwork. The Joint Staff J7 is 
now looking at the idea of ``Mission-Centric Planning,'' a promising 
recognition of the role that individual Country Teams can--and ought 
to--play in operational planning.
    Question. If confirmed, how would you address the challenges 
associated with sharing information between DOD and non-DOD partners in 
policy, organizational structures, training, or other measure within 
the control of the combatant commander?
    Answer. The key to solving the information sharing challenges is to 
get the right representatives from other U.S. Government agencies at 
the AFRICOM table; developing the mission focused teams with wide 
spectrum expertise from across the interagency and when needed 
facilitate reach back to home and field offices. For those key U.S. 
Government agencies not represented at AFRICOM, I would aggressively 
seek to bring in the appropriate out of area representation.
    This is an area where non-DOD partners have to be taken on their 
own terms. The DOD has much to gain and to offer in the information 
sharing arena. As other non-DOD agencies often operate in a more 
decentralized manner, DOD can utilize its expertise in information 
gathering and synthesis to provide our interagency partners a regional 
and multi-agency picture. This may directly benefit the country teams 
and other organizations as they can see the actions outside of their 
traditional areas of focus. The DOD will benefit from the vast regional 
expertise and subject matter experts that the other government agencies 
bring to the table. We also must recognize our partners' requirement 
for information, which may well be in different formats and categories, 
and work on developing common data bases which meet both DOD and non-
DOD needs.
    Question. If confirmed, what specific actions would you expect to 
take to facilitate greater understanding of the planning process and 
capabilities between DOD and non-DOD communities involved in stability 
operations?
    Answer. Planning and planning expertise are key to successful 
operations in the DOD. As a result, attending planning courses is a 
vital requirement for DOD planners. We need to significantly expand 
available seats in planning courses, so that personnel for U.S. 
Government agencies partnering with the DOD can attend these courses 
and obtain the necessary level of planning expertise. Again, the 
development of an interagency planning course might help in this area.
    In addition, I would include DOS, USAID, and others in TSC planning 
exercises and encourage AFRICOM staff to participate in the planning 
exercises of DOS, USAID, and others.
    Question. How do you believe the significant differences in the 
capacity of non-DOD organizations to engage in stability operations 
could best be addressed?
    Answer. First, we must assess the planning and execution 
capabilities of other U.S. Government agencies, since planning capacity 
of USAID and other agencies is sometimes underestimated. Second, 
develop common training modules, including interactive joint exercises, 
which will help build capacities in areas lacking by other agencies 
including emphasis on lessons learned from previous stability 
operations.
    A second issue is that non-DOD organizations, both government and 
private, are structured so as to optimally meet the requirements of 
their particular tasks, usually very differently than DOD 
organizations. At the operational level, for example, the major 
overseas planning entities for DOD are the geographic commands, whereas 
for the DOS and most other U.S. Government agencies these entities are 
the country teams in each host country.
    We in DOD should not expect that the solution to interagency 
cooperation in Stability Operations lies in making the rest of the U.S. 
Government look like ourselves. In many aspects of stability operations 
DOD would be the supporting agency, and we thus need to understand the 
strengths and weaknesses of non-DOD agencies and concentrate how we can 
gain greater synergy by working together. The real strength of the 
COCOMs, the ability to plan and execute across international boundaries 
on a regional basis, is a natural complement to the strengths of other 
U.S. Government agencies represented in the Country Teams to cooperate 
in furthering common U.S. goals within international boundaries.
    One of the ways, that COCOMS can overcome the problems, and build 
real synergy in Stability Operations, is to organize itself so as to be 
able to work most effectively with non-DOD agencies. AFRICOM intends to 
be a leader in developing this concept. This is a work in progress, but 
I am convinced that we are on the right path for the future.

                               ARTICLE 98

    Question. The State Department and DOD have been limited in their 
ability to engage with some African nations because bilateral ``Article 
98'' agreements, which protect American citizens from the International 
Criminal Court, have not been secured.
    What is your assessment of the impact of the inability of the U.S. 
to provide foreign military assistance to countries with whom we have 
not been able to negotiate Article 98 agreements?
    Answer. AFRICOM's anticipated AOR will consist of over 50 
countries. While only a handful of those countries are currently 
adversely affected by the lack of an Article 98 agreement, two of the 
most important regional powers, South Africa and Kenya, are included. 
The other affected countries are Mali, Namibia, Niger, and Tanzania.
    De-linking international military education and training (IMET) 
with American Servicemembers' Protection Act (ASPA) sanctions was a 
positive and critical step in rebuilding these relationships. However, 
with ASPA sanctions blocking foreign military financing (FMF) for these 
countries, bilateral sanctions are causing both direct and indirect 
adverse effects, and these effects spread to other areas of U.S. 
interest.
    In South Africa the bulk of the FMF credits of $6 million (2002) 
were applied to cases to support the South African National Defense 
Forces (SANDF) C-130 fleet for parts and training. The suspension of 
FMF support to South Africa played a part in their decision to 
modernize their lift fleet with the Airbus M400 over the C130. The 
effect will continue to be felt for decades to come as defense 
contracts are lost to other countries, affecting both our defense 
industry and our overall interoperability with the most powerful nation 
on the continent. In Kenya, the prohibition on Foreign Military Sales 
(FMS) is causing our support for their F5 aircraft to close. CENTCOM's 
intent to support Kenya's desire to modernize their Airborne, special 
operation forces, and counter terrorism elements will also not be 
executable due to a lack of Foreign Military Financing.

                           DISASTER RESPONSE

    Question. For each of the past several years, the continent of 
Africa has experienced a number of major natural disasters. Most 
recently, we have seen flooding in Somalia, Kenya, and Uganda. DOD has 
responded in a limited way.
    Should DOD's role in responding to such disasters change with the 
standing up of AFRICOM?
    Answer. DOD has an excellent working relationship with USAID's 
Office of Foreign Disaster Assistance (OFDA). We plan to have a liaison 
officer from OFDA in our Command structure. Although I do not see our 
role in support of OFDA, as the lead Federal agency for disaster 
response, changing, I do see our ability to plan with and improve our 
capability to provide support to OFDA greatly improving with the stand 
up of AFRICOM, and given necessary resources to respond are provided 
when requested.
    Question. In some countries, a natural disaster compounds a 
political conflict, thereby exacerbating existing security and 
humanitarian conditions.
    To what extent do you believe AFRICOM should step in to facilitate 
humanitarian aid?
    Answer. AFRICOM can call upon the unique capabilities of the U.S. 
military to address a wide variety of issues resulting from natural 
disasters or complex humanitarian emergencies. As a part of AFRICOM's 
interagency approach to issues in Africa, I will follow the lead of the 
U.S. Chief of Mission for the affected country, coordinating with and 
supporting his/her efforts. At the same time any assets that are made 
available to the issue will also be coordinated and vetted with OFDA.

                              HUMAN RIGHTS

    Question. In your view, does the U.S. do enough to train African 
militaries on matters such as respect for human rights, the rule of 
law, and the proper role of the civilian-controlled military in a 
democracy?
    Answer. In my current position as Deputy Commander of EUCOM, I have 
observed the serious effort that the Departments of Defense and State 
devote to these issues as we work together in training African 
militaries. For example, the State Department funds International 
Military Education and Training programs that are implemented within 
U.S. embassies by military officers assigned to our Offices of Defense 
Cooperation and Defense Attache Offices. Foreign military members and 
units proposed to receive U.S. Government funded training undergo a 
``vetting procedure'' to review the backgrounds for human rights 
violations. This vetting occurs for all security assistance programs 
and military training programs. The State Department's African 
Contingency Operations Training Assistance (ACOTA) program, which often 
includes U.S. military trainers, and Defense's Africa Center for 
Strategic Studies programs both ``vet'' proposed trainees. During ACOTA 
training events, human rights, rule of law, and the role of a civilian 
controlled military in a democracy are all topics that are emphasized 
as the U.S. Government trains African peacekeepers.
    Question. If confirmed, would you expect to create an office within 
AFRICOM to monitor and coordinate human rights issues?
    Answer. If confirmed, I expect to very closely analyze the command 
structure of AFRICOM taking into consideration the new expertise 
provided by incorporating interagency staff, before making a formal 
decision on establishing a specific office to monitor human rights 
issues.

               COMBINED JOINT TASK FORCE--HORN OF AFRICA

    Question. What is your view of the strategic importance of the Horn 
of Africa to the United States?
    Answer. There are a number of key reasons behind the ``strategic 
importance'' of the HOA to the U.S. African countries are plagued with 
internal and external tensions which have prevented economic growth and 
political stability. The U.S. interagency efforts combined with the 
CJTF-HOA presence helps to prevent regional conflict leading to a more 
stable environment.
    HOA, like the other regions in Africa, represents the next frontier 
of global economic development and competition. Development of new 
markets and new resources not only supports the U.S. economy, but 
creates prosperity in a historically poor region, ameliorating the 
underlying causes of instability and conflict.
    Much of the world's oil flow and other critical mineral resources 
pass through international waters near the HOA coast. It is vital for 
the U.S. to prevent disruption of these global superhighways.
    Historically, extremists have sought refuge in the HOA sub-region. 
Not only do they present a threat to the U.S.-African partnership aimed 
at pursuing political stability and economic prosperity, but from the 
HOA it can be exported to other parts of the world. It is again of key 
strategic importance that we do all that we can to prevail against such 
a threat.
    Question. With the standing up of AFRICOM, do you believe the U.S. 
can play a more significant role in this subregion, particularly in a 
country like Somalia? If so, how?
    Answer. The standing up of AFRICOM will further contribute to the 
current CJTF-HOA efforts aimed at promoting regional stability by 
bringing a more focused and coherent interagency effort in the region. 
With regard to Somalia, CJTF-HOA's military assistance to the Ugandan 
Peoples Defense Forces (UPDF) deployed in support of the AU 
Peacekeeping Mission in Somalia provides a good example of the 
significant role AFRICOM can bring to support a resolution for the 
Somalia conflict.
    CJTF-HOA supported the AU's logistic planning efforts to deploy the 
UPDF to Mogadishu, facilitated medical training for the UPDF and worked 
with a NGO to provide medical supplies to the UPDF for direct 
assistance of the citizens in Mogadishu. CJTF-HOA also facilitated 
training for UPDF marine forces in Kenya prior to their deployment to 
protect the Mogadishu Seaport.
    AFRICOM's focused attention on the HOA region and interagency staff 
composition will facilitate a wide range of opportunities for 
assistance to the AU's efforts in the region using African solutions to 
African problems.

                           MARITIME SECURITY

    Question. Maritime security has proven to be a significant issue on 
the coasts of west and east Africa. In the west, northern migration to 
Europe and the Gulf of Guinea are the challenges and, in the east, 
pirating in the major shipping lanes and transporting of terrorists to 
and from the Middle East are the challenges.
    What is your assessment of EUCOM's efforts to combat maritime 
threats in the west?
    Answer. Africa presents some unique challenges in the maritime 
security environment. The West Indian Ocean and Gulf of Guinea regions 
of Africa are areas which clearly demonstrate the complexity of 
maritime challenges present around the continent. In each of these 
regions, problems such as illicit or criminal activity, piracy, 
environmental and fisheries violations, resource theft, and 
trafficking, occur on a routine and regular basis. The common 
challenges in both of these regions highlight the extent of the 
problem, and identify some of the various attributes that must 
necessarily be addressed if a comprehensive maritime security solution 
for Africa is to be provided. In the end, African solutions for African 
challenges will yield the best results.
    EUCOM is actively working with the Gulf of Guinea countries, 
through Navy Europe (NAVEUR), to help them address their maritime 
threats. The African Partnership Station (APS) program, about to 
launch, will be another effort to help the Gulf of Guinea nations 
combat their maritime threats.
    Question. What is your assessment of U.S. CENTCOM's efforts to 
combat maritime threats in the Horn of Africa?
    Answer. The Horn of Africa region has unique maritime security 
challenges that include problems such as illicit/criminal activity, 
piracy, environmental and fisheries violations, resource theft, and 
trafficking, which occur on a routine and regular basis. The challenges 
extend beyond the Horn of Africa and include the entire West Indian 
Ocean region of Africa. With over 4,750 miles of coastline and only 25 
boats to provide maritime security, the region possesses virtually no 
capability to interdict fishery theft, piracy, narco-trafficking, or 
any other illicit activity in the maritime domain when it occurs.
    CENTCOM's efforts to combat maritime threats in the Horn of Africa, 
Naval Forces, Central (NAVCENT), and the Coalition Task Force, CTF-150, 
working with the CJTF-HOA, have been focused on assisting the Africans 
to combat terrorism, piracy, narcotic trafficking, and other illicit 
activity. Through maritime interdiction operations, developing maritime 
domain awareness, and providing military-to-military training, both 
Task Forces have been working towards building regional capacity 
through bi-lateral and multi-lateral engagements in the Horn of Africa 
region. Presently, both the Horn of Africa and the West Indian Ocean 
region lack significant naval forces, coastal security forces or 
security structures to provide any meaningful or realistic deterrent. 
CENTCOM, through the efforts of CTF-150 and CJTF-HOA, has made great 
strides to assist the region in combating the threat while helping the 
region strengthen its ability to fully maintain its maritime security. 
AFRICOM will continue to build on these efforts and look to add value 
where needed to lead toward African solutions for African 
challenges.What role do you expect AFRICOM to play in efforts to combat 
maritime threats in and around Africa?
    Answer. AFRICOM will build upon the existing efforts to assist 
African nations to build capacity in the areas of maritime security and 
safety, specifically, in the Gulf of Guinea region, the Horn of Africa, 
and the West Indian Ocean region. AFRICOM will add value to these 
efforts, maximizing the resources that the Interagency, non-government 
organizations, our international partners and our African partners 
already bring to the continent.

                                 EGYPT

    Question. It is the committee's understanding that Egypt has been 
given dual status in the CENTCOM and AFRICOM AORs.
    What is your understanding of how this dual status in two 
geographic AORs will be implemented?
    Answer. Operationally and administratively Egypt will be part of 
the CENTCOM AOR. However, AFRICOM will have the ability to work with 
Egypt on Africa-related issues.
    Question. For instance, how would issues related to U.S. Foreign 
Military Financing associated with Egypt be coordinated by the two 
commands?
    Answer. CENTCOM will have responsibility for the coordination of 
foreign assistance programs for Egypt. There will be little change in 
how security assistance and combatant command programs in general would 
be managed with Egypt once AFRICOM reaches final operating capability.

                             AFRICAN UNION

    Question. In December 2006, the State Department established a U.S. 
Mission to the AU. The purpose of this mission is to forge a strategic 
partnership with the AU that will further peace, stability and 
prosperity throughout Africa. In March 2007, you visited with AU 
officials about a number of issues, including AFRICOM.
    In your assessment, is the AU receptive to the AFRICOM?
    Answer. Yes. The AU's strong support of communications exercise 
Africa Endeavor is an example of the positive development between the 
AU and the USEUCOM. In addition, over the last few years EUCOM has 
provided the AU advice, mentoring and tactical expertise as the AU 
developed the concepts, doctrine, policies and procedures for Command, 
Control, and Communications and Information Services (C\3\IS) which 
will support the African Standby Forces. These programs will continue 
under AFRICOM, fully endorsed by the AU.
    Question. Do you believe the AU will be receptive to U.S. 
assistance in the form of training and advisory and technical support 
to the development of an African Standby Force?
    Answer. Yes. The AU's stated policy is to man as many African peace 
support operations as possible, sourced in large part through Africa 
Standby Forces, which the AU intends to certify for initial operating 
capability by 2010. To assist the AU in reaching its goal, AFRICOM will 
assume sponsorship of ongoing command and control infrastructure 
development and liaison officer support, continue to resource military 
mentors for peacekeeping training, and develop new approaches to 
supporting the AU and African Standby Forces.

                                 LIBYA

    Question. Over the past few years, the United States' relationship 
with Libya has improved dramatically.
    In your assessment, what should be the nature of our military-to-
military cooperation with Libya?
    Answer. Libya's continuing transformation to responsible governance 
and normalization in its relationship with the international community 
shows a level of commitment by its leadership that necessitates a 
deliberate, measured pace of engagement between our two militaries. 
Initial activities align with U.S. Country Team initiatives to 
highlight American goodwill, and to assess with Libyan military leaders 
where we can best assist and collaborate to enhance their current 
capabilities.
    We have made steady progress with Libya since restrictions under 
the International Traffic in Arms Regulations (ITAR) were modified in 
February of this year. However, removal or waiver of legislative 
restrictions imposed under Section 507 of the Foreign Operations, 
Export Financing, and Related Appropriations Act of 2006 (Public Law 
109-112) would provide additional opportunity to positively influence 
our relationship with the Libyan military through English language 
training and other International Military Education and Training (IMET) 
program opportunities.
    Question. In your opinion, is Libya's nonparticipation in the 
Trans-Saharan Counterterrorism Program (TSCTP) a liability for the 
program?
    Answer. Libya's eventual inclusion in the TSCTP will add value to 
the program. But, I do not view their current absence as a liability. 
TSCTP focus is much more on the Sahel countries that have less 
capability than Libya or the rest of the Maghreb.

                                LIBERIA

    Question. The United States and Liberia have long enjoyed a special 
relationship, dating back to the 1820s when the first group of settlers 
arrived in Liberia from the United States. Liberia now counts the 
United States as its strongest supporter in its democratization and 
reconstruction efforts. It has been reported that Liberia has expressed 
a strong desire to be considered as one of the hubs of the new AFRICOM.
    What role do you envision for Liberia in AFRICOM's planning?
    Answer. The democratization and reconstruction programs in Liberia 
are critical to restoring stability in that country and the West Africa 
region as a whole. The United States Government, in conjunction with 
other nations, multi-national organizations, and NGOs, is committed to 
contributing to Liberia's continued transition from a post-conflict 
society to a stable democracy. AFRICOM, along with DOS, USAID and other 
key agencies will play a role in supporting the U.S. Government's 
commitment to Liberia's reconstruction. The cornerstone of Liberia's 
effort to rebuild its national defense is the U.S.-led Security Sector 
Reform (SSR) program. To secure Liberia's peaceful security 
environment, the United States is funding the creation of a new Armed 
Forces of Liberia (AFL) by training and equipping a 2,000-soldier 
force. The goal of the U.S. is to complete the rebuilding of the new 
AFL forces in time for the U.N.'s peacekeeping mission to begin its 
drawdown of forces in 2009. AFRICOM, in close coordination with the 
efforts underway through the DOS, will continue to promote peace and 
security within its programs and authorities.

                          MAGHREB/NORTH AFRICA

    Question. Partially isolated from the rest of the continent by the 
Atlas Mountains and the Sahara, the Maghreb has proven to be a 
significant counter terrorism challenge for the United States. The 
TSCTP has attempted to build the capacity of these northwest African 
nations to conduct counterterrorism operations.
    In your opinion, are U.S. efforts in this region adequate? Should 
DOD be doing more?
    Answer. The continued growth of al Qaeda's influence in North 
Africa indicates that U.S. efforts in the region should be sustained. 
In the Sahel, DOD is providing as much capacity building assistance as 
those countries either desire or can effectively absorb. However, we 
continue to seek ways that we can assist and enhance capabilities of 
nations in the region. One specific area of success has been the 
growing synergy between EUCOM's Trans-Sahara Partnership (TSP) and 
DOS's TSCTP where we are discussing planned programs and activities 
within the Interagency in an effort to build upon each other's success 
and avoid duplication of effort or efforts at cross purposes. AFRICOM 
can achieve more by working in a more coordinated and coherent way with 
the U.S. Government Interagency, NGOs, and other partners seeking to 
advance peace, stability, and security in Africa.
    Question. How would you assess Libya's efforts to prevent terrorist 
and criminal groups from exploiting remote territories in light of the 
country's persistent inability to prevent large numbers of economic 
migrants from crossing its borders?
    Answer. As I understand, Libya faces some challenges in this 
regard, as do most of the Maghreb and Sahelian countries. This 
highlights the importance of positive engagement and influence with 
Libya.

                             DARFUR, SUDAN

    Question. More than 3 years of fighting in Darfur have destroyed 
hundreds of villages, displaced 2.2 million people and led to hundreds 
of thousands of deaths. If confirmed, you would be one of the U.S. 
Government's most senior military advisors on matters relating to the 
crisis in Darfur.
    What is your assessment of the situation in Darfur and what 
recommendations would you provide to your leadership as commander of 
AFRICOM given the circumstances as they stand today?
    From a military perspective, what is the proper role for the United 
States and NATO to play in assisting the deployment of the UN-AU hybrid 
mission and in supporting the pursuit of its mission?
    Answer. The United States remains actively engaged in helping to 
resolve the crisis in Darfur through humanitarian assistance, support 
of the political process, and logistical assistance to the African 
Union and the United Nation's support to the African Union Mission in 
Sudan (AMIS) and its transition to a United Nations African Union 
Mission in Darfur (UNAMID). As part of the U.S. Government Interagency 
effort, we actively plan for diplomatic and military contingencies to 
pressure the Sudanese government to allow a United Nations peacekeeping 
force in Darfur.
    Through outreach to troop contributing countries (TCC) and with UN, 
AU, and our partners, we are working to ensure that this hybrid force 
will be deployed quickly and effectively with sufficient political and 
military support to successfully bring peace to the war-torn Darfur. 
DOD must continue to play its supporting role to ensure the timely 
deployment of PK forces and provide logistic and planning.

                              SOUTH AFRICA

    Question. South Africa has stated publicly its opposition to 
AFRICOM and has indicated that it will not host AFRICOM personnel.
    If confirmed, how would you intend to address South Africa's 
concerns regarding AFRICOM, particularly given that country's position 
of influence in Africa?
    Answer. South Africa is a continental leader and has a key role in 
the development of Africa. If confirmed, I intend to find areas of 
common interest to develop a relationship built on trust and mutual 
support. The resumption of International Military Education and 
Training (IMET) last year, after a 4-year suspension due to the 
American Servicemembers' Protection Act (ASPA) sanctions, was a 
positive step forward. Ongoing Africa Contingency Operations Training 
and Assistance (ACOTA) training and a scheduled medical exercise in 
2009, will provide additional opportunities to strengthen our bi-
lateral relationship. Lastly I will continue direct dialogue with the 
Southern Africa Development Community (SADC) and South African leaders 
both civilian and military on the role and mission of AFRICOM.

                                 CHINA

    Question. In your opinion, what effect has China's engagement with 
African militaries had on those militaries and on U.S. security 
interests?
    Answer. China's military involvement on the African continent 
includes military education and training in China, military sales to 
African countries to gain access to markets and resources, and roughly 
1,300 peacekeepers that support all 7 U.N. Peacekeeping Operations 
(PKO) in Africa. To date, China's military involvement has not had any 
discernable impact on U.S. security interests in Africa. Addition of 
new Chinese military equipment may pose unforeseen future 
interoperability challenges.
    Question. Do you foresee China's growing energy demands affecting 
security developments in Africa?
    Answer. Africa is growing in military, strategic and economic 
importance in global affairs. We are seeking more effective ways to 
prevent and respond to humanitarian crises, improve cooperative efforts 
to stem trans-national terrorism and sustain enduring efforts that 
contribute to African unity and bolster security on the continent.

                                NIGERIA

    Question. Nigeria, the most populous nation in Africa, has faced 
intermittent political turmoil and economic crisis since gaining 
independence in October 1960. Nigeria is one of the United States' key 
strategic partners in Africa. The country is Africa's largest producer 
of oil, and is America's fifth largest oil provider. As the continent's 
second largest economy, Nigeria's stability and prosperity affect not 
only those in the market for Nigerian oil, but the entire region. On 
the military side, Nigeria has a 76,000 member strong military. Before 
the lifting of sanctions by many Western nations, Nigeria had turned to 
China, Russia, North Korea, and India for the purchase of military 
equipment and training.
    What constructive role do you believe AFRICOM can play in this 
fragile country?
    Answer. AFRICOM looks forward to opportunities with the new 
Yar'Adua administration to enhance the relationship between our two 
countries. Early indications are that the new leader is demonstrating a 
bold willingness to address corruption and economic development. We see 
Nigeria as a key regional partner. The United States and Nigeria are 
now moving forward on common initiatives such as peacekeeping training, 
Regional Maritime Domain Awareness, and consultations with other 
international partners on energy security in the Niger Delta.
    In addition to the typical security cooperation activities like 
International Military Education and Training (IMET), Foreign Military 
Financing (FMF), and the Defense HIV/AIDS Prevention Program, there are 
two major initiatives in which DOD plays a major role. Operation 
Enduring Freedom--Trans Sahara (OEF-TS) is the military component of 
the TSCTP. This program seeks to reduce ungoverned space that might be 
exploited by terrorist groups and mitigate the influence of extremist 
ideologies. In Nigeria, OEF-TS has concentrated primarily on 
development and humanitarian assistance in Northern Nigeria as part of 
the embassy's Muslim Outreach Program, as well as strategic 
communications. Now that the elections are over we stand ready to 
broaden and deepen OEF-TS activities to include training and equipping 
counterterrorism forces and encouraging intelligence sharing with other 
TSCTP partners.
    DOD also participates in the quarterly meetings with the Government 
of Nigeria on development and security in the Niger Delta. While there 
is no military solution to the Niger Delta's problems, security can 
enable development and political dialogue. DOD's contribution to this 
effort is primarily in coastal and maritime security, as well as 
initiatives aimed at reducing weapons trafficking. The cornerstone of 
DOD efforts is a multi-million dollar program known as the Regional 
Maritime Awareness Capability (RMAC) funded partially under 1206 
Authority.
    AFRICOM should also integrate its efforts with the West African 
regional organization, Economic Community of West African States 
(ECOWAS) headquartered in Abuja, Nigeria. Over the past decade, Nigeria 
provided over 45 percent of ECOWAS' military troop contributions for 
peacekeeping missions. Through fiscal year 2008, DOD will support the 
comprehensive training and equipping of additional Nigerian 
peacekeeping battalions with mentors and advisors.

                             CLIMATE CHANGE

    Question. During a recent visit to EUCOM, committee staff was 
briefed on the security threats in Africa. One of the items discussed 
by personnel from EUCOM's J2 Directorate was the impact of global 
climate change.
    What is your assessment of the threat posed to Africa by climate 
change?
    Answer. Climate change could exacerbate current instability in 
Africa in a number of ways. Droughts, floods, and other effects of 
climate change could lead to future crop failures, massive refugee 
flows, and significant damage to African economies and societies. The 
chaos and desperation of these tragedies could help undermine 
governments, increase civil unrest, and promote extremism in a number 
of countries.
    Question. What are the national security implications for the 
United States?
    Answer. Climate change could pose a serious threat to U.S. national 
security interest in Africa. Some countries could be pushed into 
greater instability as a result of floods, droughts, or other 
catastrophes brought on by global climate change. Unstable areas 
provide the perfect recruiting ground for terrorist groups seeking new 
blood for their war against the west. Devastating storms in the Gulf of 
Guinea, for example, might damage the region's oil infrastructure, 
leading to disruptions in oil production and higher oil prices for the 
global economy.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes. I fully recognize and understand the importance of 
congressional oversight as it is clearly outlined in the Constitution 
of the United States.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes. Although the President is my Commander in Chief, and 
he and the Secretary of Defense constitute my chain of command, I 
recognize that my oath is to the Constitution. That document clearly 
divides responsibilities with regard to defense between the executive 
and legislative branches. For both the administration and Congress to 
execute their respective responsibilities appropriately, it is 
incumbent upon me to be honest and forthright with both while offering 
my best military advice.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, AFRICOM?
    Answer. Yes. That is an inherent part of my responsibilities as 
outlined above, and I will be happy to appear when called.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

              Question Submitted by Senator Susan Collins

                      MARITIME SECURITY OF AFRICA

    1. Senator Collins. General Ward, maritime security has proven to 
be a significant issue on the coast of West and East Africa. In your 
advance policy questions you state that Africa presents some unique 
challenges in the maritime security environment. You also mentioned 
that the U.S. European Command (EUCOM) is actively working with the 
Gulf of Guinea countries, through Naval Forces, Europe (NAVEUR), to 
help them address maritime threats. Can you tell us what you envision 
will be the new U.S. Africa Command's (AFRICOM) role in maritime 
security on the west and east coast of Africa?
    General Ward. AFRICOM, in concert with its naval component NAVEUR, 
will continue the EUCOM legacy by working on building maritime 
capability and capacity in Africa. NAVEUR will continue its role of 
helping to build and maintain the core competencies of leadership and 
combat readiness to counter any adversary, as well as develop new 
capacities for our partners, such as maritime security and safety where 
participating nations network maritime detection and identification 
information to appropriate law enforcement agencies.
    In particular, the Automated Identification System is the first 
step to achieve this awareness and will provide a critical foundation 
to the Global Maritime Partnerships. Additionally, another program 
designed to enhance maritime security and safety is the Africa 
Partnership Station. This initiative is designed to provide direct 
assistance using at-sea training platforms that provide a persistent 
regional presence with a minimal footprint ashore.
    Deployments of vessels off West Africa will continue, utilizing 
engagement teams from these vessels for familiarization events--from 
small engine repair to health education--the efforts to build long 
lasting partnerships will continue.
                                 ______
                                 
    [The nomination reference of GEN William E. Ward, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 11, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Army to the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C., section 601:

                             To be General

    GEN William E. Ward, 0000.
                                 ______
                                 
    [The biographical sketch of GEN William E. Ward, USA, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
        Transcript of Naval Service for GEN William E. Ward, USA
Source of commissioned service: ROTC.

Military schools attended:
    Infantry Officer Basic and Advanced Courses
    United States Army Command and General Staff College
    United States Army War College

Educational degrees:
    Morgan State University - BA - Political Science
    Pennsylvania State University - MA - Political Science

Foreign language(s): None recorded.

Promotions:

------------------------------------------------------------------------
                                                           Dates of
                     Promotions                           appointment
------------------------------------------------------------------------
2LT.................................................           6 Jun 71
1LT.................................................           9 Oct 72
CPT.................................................           9 Jun 75
MAJ.................................................           1 Jan 83
LTC.................................................           1 Feb 89
COL.................................................           1 Jun 92
BG..................................................           1 Mar 96
MG..................................................           1 Feb 99
LTG.................................................           8 Oct 02
GEN.................................................           3 May 06
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Sep. 71.........................  May 74............  Rifle Platoon
                                                       Leader, later
                                                       Executive
                                                       Officer, A
                                                       Company, later
                                                       Anti-Tank Platoon
                                                       Leader, later
                                                       Motor Officer, 3d
                                                       Battalion, 325th
                                                       Infantry, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC.
May 74..........................  Oct. 74...........  Liaison Officer,
                                                       2d Brigade, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC.
Oct. 74.........................  Apr. 76...........  Rifle Platoon
                                                       Leader, B
                                                       Company, later
                                                       Commander, C
                                                       Company, 1st
                                                       Battalion
                                                       (Mechanized),
                                                       17th Infantry, 2d
                                                       Infantry
                                                       Division, Eighth
                                                       United States
                                                       Army, Korea.
Apr. 76.........................  Dec. 76...........  Student, Infantry
                                                       Officer Advanced
                                                       Course, United
                                                       States Army
                                                       Infantry School,
                                                       Fort Benning, GA.
Dec. 76.........................  Nov. 78...........  Student,
                                                       Pennsylvania
                                                       State University,
                                                       University Park,
                                                       PA.
Nov. 78.........................  Apr. 82...........  Instructor of
                                                       Social Sciences,
                                                       later Assistant
                                                       Professor,
                                                       Department of
                                                       Social Sciences,
                                                       United States
                                                       Military Academy,
                                                       West Point, NY.
Apr. 82.........................  June 83...........  Student, United
                                                       States Army
                                                       Command and
                                                       General Staff
                                                       College, Fort
                                                       Leavenworth, KS.
Aug. 83.........................  May 85............  S-4 (Logistics),
                                                       210th Field
                                                       Artillery
                                                       Brigade, VII
                                                       Corps, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany.
May 85..........................  June 86...........  Executive Officer,
                                                       United States
                                                       Army Military
                                                       Community
                                                       Activity--Aschaff
                                                       ensberg, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany.
June 86.........................  June 87...........  Executive Officer,
                                                       1st Battalion
                                                       (Mechanized), 7th
                                                       Infantry, 3d
                                                       Infantry
                                                       Division, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany.
July 87.........................  Oct. 88...........  Staff Officer
                                                       (Logistics),
                                                       Office of the
                                                       Deputy Chief of
                                                       Staff for
                                                       Logistics, United
                                                       States Army,
                                                       Washington, DC.
Oct. 88.........................  July 91...........  Commander, 5th
                                                       Battalion, 9th
                                                       Infantry, 2d
                                                       Brigade, later G-
                                                       4 (Logistics),
                                                       6th Infantry
                                                       Division (Light),
                                                       Fort Wainwright,
                                                       AK.
Aug. 91.........................  June 92...........  Student, United
                                                       States Army War
                                                       College, Carlisle
                                                       Barracks, PA.
June 92.........................  June 94...........  Commander, 2d
                                                       Brigade, 10th
                                                       Mountain Division
                                                       (Light), Fort
                                                       Drum, NY, and
                                                       Operation Restore
                                                       Hope, Mogadishu,
                                                       Somalia.
July 94.........................  July 95...........  Executive Officer
                                                       to the Vice Chief
                                                       of Staff, United
                                                       States Army,
                                                       Washington, DC.
July 95.........................  Sep. 96...........  Deputy Director
                                                       for Operations, J-
                                                       3, National
                                                       Military Command
                                                       Center, The Joint
                                                       Staff,
                                                       Washington, DC.
Sep. 96.........................  Feb. 98...........  Assistant Division
                                                       Commander
                                                       (Support), 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC.
Feb. 98.........................  July 99...........  Chief, Office of
                                                       Military
                                                       Cooperation,
                                                       Egypt, American
                                                       Embassy, Egypt.
July 99.........................  Nov. 00...........  Commanding
                                                       General, 25th
                                                       Infantry Division
                                                       (Light) and
                                                       United States
                                                       Army, Hawaii,
                                                       Schofield
                                                       Barracks, HI.
Nov. 00.........................  Oct. 02...........  Vice Director for
                                                       Operations, J-3,
                                                       The Joint Staff,
                                                       Washington, DC.
Oct. 02.........................  Oct. 03...........  Commander,
                                                       Stabilization
                                                       Force, Operation
                                                       Joint Forge,
                                                       Sarajevo, Bosnia-
                                                       Herzegovina.
Nov. 03.........................  Feb. 05...........  Deputy Commanding
                                                       General/Chief of
                                                       Staff, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany.
Mar. 05.........................  Dec. 05...........  Deputy Commanding
                                                       General/Chief of
                                                       Staff, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany with
                                                       temporary duty as
                                                       United States
                                                       Security
                                                       Coordinator,
                                                       Israel-
                                                       Palestinian
                                                       Authority, Tel
                                                       Aviv.
Dec. 05.........................  Apr. 06...........  Deputy Commanding
                                                       General/Chief of
                                                       Staff, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany.
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
          Assisgnments                  Dates                Rank
------------------------------------------------------------------------
Deputy Director for Operations,     July 95-Sep. 96  Colonel/Brigadier
 J-3, National Military Command                       General
 Center, The Joint Staff,
 Washington, DC.
Chief, Office of Military           Feb. 98-July 99  Brigadier General/
 Cooperation, Egypt, American                         Major
 Embassy, Egypt.
Vice Director for Operations, J-    Nov. 00-0ct. 02  Major General
 3, The Joint Staff, Washington,
 DC.
Commander, Stabilization Force,     Oct. 02-0ct. 03  Lieutenant General
 Operation Joint Forge,
 Sarajevo, Bosnia-Herzegovina
 (No Joint credit).
Deputy Commanding General/Chief     Mar. 05-Dec. 05  Lieutenant General
 of Staff, United States Army
 Europe and Seventh Army,
 Germany with temporary duty as
 United States Security
 Coordinator, Israel-Palestinian
 Authority, Tel Aviv (No Joint
 Credit).
Deputy Commander, United States      May 06-Present  General
 European Command, Germany.
------------------------------------------------------------------------


U.S. Decorations and badges:
    Defense Distinguished Service Medal (with Oak Leaf Cluster)
    Distinguished Service Medal
    Defense Superior Service Medal (with two Oak Leaf Clusters)
    Legion of Merit (with two Oak Leaf Clusters)
    Defense Meritorious Service Medal
    Meritorious Service Medal (with six Oak Leaf Clusters)
    Joint Service Commendation Medal
    Army Commendation Medal (with three Oak Leaf Clusters)
    Army Achievement Medal (with Oak Leaf Cluster)
    Combat Infantryman Badge
    Expert Infantryman Badge
    Master Parachutist Badge
    Joint Chiefs of Staff Identification Badge
    Army Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by GEN William E. 
Ward, USA, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    William E. Ward.

    2. Position to which nominated:
    Commander, United States Africa Command.

    3. Date of nomination:
    July 11, 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    March 6, 1949; Baltimore, MD.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to the former Joyce Lewis.

    7. Names and ages of children:
    William E. Ward, Jr., age 34; and Kahni J. Ward, age 30.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Association for the U.S. Army; Omega Psi Phi Fraternity, Inc.; Army 
War College Alumi Assoc.; Morgan State University Alumni Assoc.; 
National Society of Pershing Rifles; Watertown New York Sunrise Rotary; 
555 Parachute Infantry Assoc.; Army/Air Force Mutual Aid Assoc.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   William E. Ward.
    This 10th day of July, 2007.

    [The nomination of GEN William E. Ward, USA, was reported 
to the Senate by Chairman Levin on September 27, 2007, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 28, 2007.]
                              ----------                              

    [Prepared questions submitted to Gen. Kevin P. Chilton, 
USAF, by Chairman Levin prior to the hearing with answers 
supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The enactment of the Goldwater-Nichols Department of 
Defense Reorganization Act of 1986 and the Special Operations reforms 
brought about fundamental change in the manner in which the Department 
of Defense (DOD) and the Services carry out the mission of national 
security.
    Do you support full implementation of these defense reforms?
    Answer. Yes.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The most positive aspect is the overall improvement in our 
joint military operations. The Goldwater-Nichols Act resulted in much 
needed improvements in joint doctrine, joint professional military 
education, and joint strategic planning. Another important element is 
clarity in the chain of command from the national leadership to the 
combatant commanders and the unambiguous responsibility placed upon 
each combatant commander for execution of the mission and preparedness 
of assigned forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I believe that the DOD has vigorously and successfully 
pursued implementation of these reforms.
    Question. The goals of Congress in enacting the Goldwater-Nichols 
Department of Defense Reorganization Act of 1986 and the Special 
Operations defense reforms, as reflected in section 3 of the Goldwater-
Nichols Department of Defense Reorganization Act, can be summarized as 
strengthening civilian control over the military; improving military 
advice; placing clear responsibility on the combatant commanders for 
the accomplishment of their missions; ensuring the authority of the 
combatant commanders is commensurate with their responsibility; 
increasing attention to the formulation of strategy and to contingency 
planning; providing for more efficient use of defense resources; 
enhancing the effectiveness of military operations; and improving the 
management and administration of the DOD.
    Do you agree with these goals?
    Answer. Yes.
    Question. Do you foresee the need for additional modifications of 
Goldwater-Nichols in light of the changing environment and possible 
revisions to the national security strategy.
    Answer. No. I do not believe changes to Goldwater-Nichols are 
necessary at this time. If confirmed, I will monitor any proposals and 
provide my best military advice.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Strategic Command (STRATCOM)?
    Answer. The Commander, STRATCOM maintains primary responsibility 
among the combatant commanders for strategic nuclear forces to support 
the national objective of strategic deterrence. Additional 
responsibilities assigned by the President include providing integrated 
global strike planning and command and control to deliver precision 
kinetic and nonkinetic effects; developing characteristics and 
capabilities, advocating, planning, and conducting space operations; 
planning, integrating, and coordinating global missile defense support, 
operations, and desired characteristic and capability development; 
planning, integrating, and coordinating intelligence, surveillance, and 
reconnaissance in support of strategic and global operations; 
integrating and coordinating DOD information operations efforts across 
geographic areas of responsibilities; planning, leading and 
coordinating DOD global network operations and defense; and serving as 
the lead combatant commander integrating DOD efforts combating weapons 
of mass destruction (WMD). Additionally, Commander, STRATCOM provides 
strategic military advice to the Secretary of Defense and exercises 
command over the organization and operation of all assigned forces and 
headquarters in accordance with public law and DOD regulations.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. Over 31 years of commissioned service in the United States 
military have prepared me for this position. My career includes diverse 
and challenging operational and staff assignments, within both the Air 
Force and Joint Service environments and National Aeronautics and Space 
Administration (NASA). I believe these assignments have prepared me for 
the specific duties of the Commander, STRATCOM. My assignment as Task 
Force 204 Commander (responsible for the readiness and generation of 
our nuclear bomber fleet) combined with my command of STRATCOM's Joint 
Functional Component Command for Space and Global Strike (responsible 
for integrated planning and command and control for space and global 
strike operations) have prepared me for the STRATCOM responsibilities 
for strategic nuclear forces, global strike and conducting space 
operations. Further, my experiences as the Commander of Air Force Space 
Command, coupled with those at NASA, to include work in launch, mission 
control, on orbit operations, program management and international 
negotiation, particularly with Russia, I believe will serve me well if 
confirmed. In the cyber and information operations areas, my command of 
the Air Force Network Operations Command and oversight of the Air 
Force's information operations and intelligence wings as the 8th Air 
Force Commander will be helpful. In the mission area of ISR, I've had 
the opportunity to fly in the tactical and strategic mission areas in 
the RF-4 and command the 9th Reconnaissance Wing, our Air Force's U-2 
and now Global Hawk wing. Again, as the 8th Air Force Commander, I had 
the opportunity to oversee all of our Air Force's manned reconnaissance 
platforms. In the missile defense area as the Commander of Air Force 
Space Command, I have had the opportunity to become very familiar with 
the contributions the Air Force makes to this capability in the form of 
space based and terrestrial early warning and tracking systems. 
Finally, my staff positions as the Air Force programmer and Joint Staff 
Deputy Director for Political Military Affairs for Asia, Pacific and 
the Middle East have given me a strategic perspective that I think will 
be of value if I am confirmed.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
STRATCOM?
    Answer. My military career has provided me an ongoing opportunity 
to expand leadership experiences, interact with new organizations and 
people, and to continue the learning process. If confirmed, I look 
forward to working with several of the organizations upon which 
STRATCOM depends for continued success and which I did not have an 
opportunity to work with while commanding STRATCOM's Joint Functional 
Component Command for Space and Global Strike. I will also need to 
increase my familiarity with these organizations (e.g. Department of 
Energy-National Nuclear Security Administration, Defense Threat 
Reduction Agency, Nuclear Weapons Council, etc.) and the contributions 
they provide to mission success.

                             RELATIONSHIPS

    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the commanders of the combatant 
commands. Other sections of law and traditional practice, however, 
establish important relationships outside the chain of command. Please 
describe your understanding of the relationship of the Commander, 
STRATCOM, to the following officials:
    The Secretary of Defense.
    Answer. Pursuant to title 10, U.S.C., section 164, subject to the 
direction of the President, the Commander, STRATCOM, performs duties 
under the authority, direction, and control of the Secretary of Defense 
and is directly responsible to the Secretary for the preparedness of 
the command to carry out missions assigned to the command.

                    THE DEPUTY SECRETARY OF DEFENSE.

    Answer. In accordance with title 10, U.S.C., section 132, the 
Deputy Secretary of Defense will perform such duties and exercise 
powers prescribed by the Secretary of Defense. The Deputy Secretary of 
Defense will act for and exercise the powers of the Secretary of 
Defense when the Secretary is disabled or the office is vacant. If 
confirmed, I will work closely with the Deputy Secretary on matters of 
strategic importance.
    Question. The Under Secretary of Defense for Policy.
    Answer. Title 10, U.S.C. and current DOD directives establish the 
Under Secretaries of Defense as the principal staff assistants and 
advisors to the Secretary of Defense regarding matters related to their 
respective functional areas. Within these areas, the Under Secretaries 
exercise policy and oversight functions, and in discharging their 
responsibilities the Under Secretaries may issue instructions and 
directive memoranda that implement policy approved by the Secretary. 
Communication between the Under Secretaries and combatant commanders is 
direct unless otherwise directed by the Secretary of Defense. If 
confirmed, I look forward to working with the Under Secretary of 
Defense for Policy on all policy issues that affect STRATCOM 
operations.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. Title 10, U.S.C, and current DOD directives establish the 
Under Secretaries of Defense as the principal staff assistants and 
advisors to the Secretary of Defense regarding matters related to their 
respective functional areas. Within these areas, the Under Secretaries 
exercise policy and oversight functions, and in discharging their 
responsibilities the Under Secretaries may issue instructions and 
directive memoranda that implement policy approved by the Secretary. 
Communication between the Under Secretaries and combatant commanders is 
direct unless otherwise directed by the Secretary of Defense. If 
confirmed, I look forward to working with the Under Secretary of 
Defense for Intelligence on matters in the area of STRATCOM's assigned 
responsibilities pertaining to intelligence, surveillance, and 
reconnaissance (ISR).
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics
    Answer. Title 10, U.S.C. and current DOD directives establish the 
Under Secretaries of Defense as the principal staff assistants and 
advisors to the Secretary of Defense regarding matters related to their 
respective functional areas. Within these areas, the Under Secretaries 
exercise policy and oversight functions, and in discharging their 
responsibilities the Under Secretaries may issue instructions and 
directive memoranda that implement policy approved by the Secretary. 
Communication between the Under Secretaries and combatant commanders is 
direct unless otherwise directed by the Secretary of Defense. If 
confirmed, I look forward to working with the Under Secretary of 
Defense for Acquisition, Technology and Logistics on Command issues 
pertaining to his departmental responsibilities.
    Question. The Assistant Secretary of Defense for International 
Security Policy.
    Answer. The Assistant Secretary of Defense for International 
Security Policy serves under the Under Secretary of Defense for Policy. 
Any relationship the Commander, STRATCOM requires with the Assistant 
Secretary of Defense for International Security Policy would exist with 
and through the Under Secretary of Defense for Policy.
    Question. The Assistant Secretary of Defense for Homeland Defense.
    Answer. The Assistant Secretary of Defense for Homeland Defense 
executes responsibilities including overall supervision of the homeland 
defense activities of the DOD while serving under the Under Secretary 
of Defense for Policy. Any relationship the Commander, STRATCOM 
requires with the Assistant Secretary of Defense for Homeland Security 
would exist with and through the Under Secretary of Defense for Policy. 
If confirmed, I look forward to this relationship in concert with the 
Commander, U.S. Northern Command and Commander, U.S. Pacific Command on 
related national security issues.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. Title 10, U.S.C., clearly establishes the Chairman as the 
principal military adviser to the President, the National Security 
Council, the Homeland Security Council, and the Secretary of Defense. 
In this role he is the most senior ranking member of the armed forces 
but does not exercise command over any military forces or serve in the 
chain of command between the President and Secretary of Defense and 
combatant commanders, although the President may transmit 
communications through him. By law and as directed by the Secretary of 
Defense, the Chairman consults with the combatant commanders, evaluates 
and assists in achieving their requirements and plans. He provides a 
vital linkage between the combatant commanders and other elements of 
the DOD. If confirmed, I will assist the chairman with my full and 
diligent efforts and advice. If confirmed, I will keep the Secretary of 
Defense informed on matters for which he may hold me personally 
accountable and work through the Chairman in the fulfillment of my 
duties, in keeping with all legal and departmental regulations.
    Question. The Secretaries of the Military Departments.
    Answer. Under title 10, U.S.C., section 165, subject to the 
authority, direction, and control of the Secretary of Defense, and 
subject to the authority of the combatant commanders, the Secretaries 
of the Military Departments are responsible for administration and 
support of forces that are assigned to unified and specified commands. 
The authority exercised by a combatant commander over Service 
components is quite clear but requires close coordination with each 
Secretary to ensure there is no infringement upon those lawful 
responsibilities which a Secretary alone may discharge. If confirmed, I 
look forward to building a strong and productive relationship with each 
of the Secretaries of the military departments.
    Question. The Chiefs of Staff of the Services.
    Answer. As a result of the Goldwater-Nichols Act, the Service 
Chiefs no longer serve in the operational chain of command. They now 
serve to provide organized, trained, and equipped forces to be employed 
by combatant commanders in accomplishing their assigned missions. 
Additionally, these officers serve as members of the Joint Chiefs of 
Staff and as such have a lawful obligation to provide military advice. 
Individually and collectively, the Service Chiefs are a tremendous 
source of experience and judgment. If confirmed, I will work closely 
and confer regularly with the Service Chiefs.
    Question. The Director of the National Reconnaissance Office.
    Answer. The National Reconnaissance Office (NRO) is a DOD 
organization engaged in the research and development, acquisition, 
launch and operation of overhead reconnaissance systems necessary to 
meet the needs of the Intelligence Community and of the DOD. According 
to the Unified Command Plan (UCP), STRATCOM is the responsible 
combatant commander for both space operations and for planning, 
integrating, and coordinating intelligence, surveillance, and 
reconnaissance in support of strategic and global operations, as 
directed. In these capacities, the Commander, STRATCOM must maintain a 
close relationship with the Director of the NRO to coordinate and 
represent requirements in these mission areas. If confirmed, I will 
work closely with the Director of the NRO on matters of shared interest 
and importance.
    Question. The combatant commanders, including Commander, U.S. 
Northern Command.
    Answer. The Commander, STRATCOM, has both supported and supporting 
relationships with other combatant commanders, largely identified 
within the UCP, the Forces for Unified Commands Memorandum, the Joint 
Strategic Capabilities Plan, specific command arrangement agreements, 
OPLANs, and CONPLANs. In general, the Commander, STRATCOM, is the 
supported combatant commander for the national strategic war plan, for 
planning and conducting DOD space operations, for planning, leading, 
and coordinating DOD global network operations and defense and, in 
general, is a supporting combatant commander for other UCP assigned 
missions. These additional functional missions and our current era of 
rapid global, technological, and threat changes create opportunities to 
further refine the supporting/supported command relationships between 
the combatant commands. If confirmed, I look forward to working with 
other combatant commanders to broaden and enhance the level and range 
of these relationships.
    Question. The Administrator of the National Nuclear Security 
Administration.
    Question. According to title 50, U.S.C., section 2402, the 
Department of Energy's Under Secretary for Nuclear Security serves as 
Administrator of the National Nuclear Security Administration. The 
Administrator is responsible for all Department of Energy programs and 
activities related to nuclear weapons, including the stockpile 
stewardship program. Although the Administrator serves outside the 
DOD's operational control, he does serve on the Nuclear Weapons Council 
and executes duties which closely concern STRATCOM. If confirmed, I 
will work closely and confer regularly with the Administrator.
    Question. The Director of the Missile Defense Agency.
    Answer. The Missile Defense Agency (MDA) serves as the missile 
defense systems engineering and development organization for the DOD. 
It provides the research, development, testing, and evaluation of the 
missile defense and associated systems that would be employed by 
combatant commanders. The current UCP charges STRATCOM with 
responsibilities for planning, integrating, and coordinating global 
missile defense operations, including developing and advocating for 
missile defense characteristics and capabilities desired by combatant 
commanders. Given these closely aligned responsibilities, both the 
Commander, STRATCOM and its Joint Functional Component Command for 
Integrated Missile Defense must continue their close working 
relationship with MDA. If confirmed, I will work closely with the 
Director of MDA to ensure that combatant commanders' required ballistic 
missile defense and warning capabilities are appropriately and 
effectively represented to MDA.
    Question. The Director of Operational Test and Evaluation.
    Answer. Title 10, U.S.C., section 139, provides for a Director of 
Operational Test and Evaluation, who serves as the principal advisor to 
the Secretary of Defense and the Under Secretary of Defense for 
Acquisition, Technology, and Logistics on operational test and 
evaluation in the DOD and the principal operational test and evaluation 
official within the senior management of the DOD. The Director, as 
allowed by law and departmental regulations, formulates policy, 
provides guidance, coordinates, reviews, monitors, and makes 
recommendations regarding test and evaluation matters under his 
purview. If confirmed, I will work closely with and seek the advice of 
the Director of Operational Test and Evaluation in assessing the 
progress of command programs of interest.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the next Commander, STRATCOM?
    Answer. The rapidly transforming world has empowered our potential 
adversaries to leverage information and space technologies to 
asymmetrically threaten U.S. interests. Our civil, military, and 
commercial systems are increasingly dependent on access to cyberspace 
and space-based capabilities. These dependencies make securing these 
domains crucial to our national security. The largest challenge facing 
STRATCOM is managing the complexities of securing these domains while 
meeting the demands of the command's other mission areas.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. First, ensure we have identified any/all capability gaps 
required to perform our assigned missions. Next, determine if we have 
the right command relations, organizations and tools in place to 
provide for rapid, integrated and collaborative planning and execution 
in our assigned mission areas and for the support we provide to the 
other combatant commanders.
    Question. What are your priorities for the STRATCOM?
    Answer. Deliver space capabilities to support joint operations 
around the globe. Provide the Nation a global deterrent capability to 
prevent potential adversaries from acquiring and/or using WMD. 
Integrate and synchronize DOD effects to combat adversary use and 
proliferation of WMD. Enable decisive global kinetic and nonkinetic 
combat effects through the application and advocacy of integrated ISR 
space, cyberspace, and global strike operations, information 
operations, integrated missile defense, and robust command and control.

                           STRATEGIC THREATS

    Question. In your view, what are the most serious strategic threats 
facing the United States today?
    Answer. I believe the most serious strategic threat to the U.S. 
today is the threat of non-state terrorist groups gaining control of 
and using WMD against the homeland. Attacks impacting our freedom to 
operate in space and cyberspace also pose serious strategic threats.
    Question. What future strategic threats should the United States 
prepare for?
    Answer. We face four persistent and emerging global challenges: 
traditional adversaries (nation-states), unconventional non-state or 
state supported actors, catastrophic use of WMD, and disruptive 
capabilities to supplant our advantages in particular operational 
domains. Based on these challenges, and within STRATCOM's realm of 
responsibility, several significant threats present themselves: those 
that affect our cyber and space systems, WMD, and ballistic and cruise 
missiles. Cyberspace and space are ``global commons,'' and as such, are 
vitally important to our daily way of life and the economic well-being 
of our Nation and the world. We have all observed manifestations of 
threats to these domains in the recent past. WMD and ballistic missiles 
are threats with obviously devastating consequences.

                    U.S. STRATEGIC COMMAND MISSIONS

    Question. In an overarching sense, how do you define the STRATCOM 
mission?
    Answer. I think the command's current mission statement captures it 
well: Provide the Nation with global deterrence capabilities and 
synchronized DOD effects to combat adversary WMD worldwide. Enable 
decisive global kinetic and non-kinetic combat effects through the 
application and advocacy of integrated ISR, space and global strike 
operations, information operations, integrated missile defense and 
robust command and control.
    Question. STRATCOM has absorbed multiple new missions since its 
creation, with the most recent additions being cooperative threat 
reduction, information operations, and computer network security.
    How successful has STRATCOM been at integrating these new missions 
and acquiring the expertise needed to perform them?
    Answer. My current understanding is that Cooperative Threat 
Reduction is a Defense Threat Reduction Agency (DTRA) mission and that 
STRATCOM leverages DTRA through its Director, Dr. James Tegnelia, who 
is also dual-hatted as the Director, STRATCOM Center for Combating 
Weapons of Mass Destruction. If confirmed, I will assess the scope of 
all mission areas, integration and expertise.
    Question. What organizational challenges remain at STRATCOM related 
to these new missions? Specifically, what additional work, if any, 
remains to be done and what expertise, if any, needs to be acquired for 
these new missions?
    Answer. Challenges within all mission areas are a function of 
mission maturity, integration with mission partners, operational 
capabilities, and the environment in which operations take place. If 
confirmed, I will evaluate all mission areas and determine the need for 
additional prioritization and expertise. I will also examine the roles 
and missions between the STRATCOM staff and the Joint Functional 
Component Commanders.
    Question. If confirmed, would you recommend or support any changes 
in the missions currently assigned to STRATCOM? If so, what changes 
would you recommend?
    Answer. Not at this time. As my understanding of the missions 
evolves and integration matures, I will assess command mission 
effectiveness and recommend changes as appropriate.
    Question. Are you aware of any additional new missions that are 
being contemplated for the STRATCOM?
    Answer. No.

                              ORGANIZATION

    Question. General Cartwright, the previous Commander of the 
STRATCOM reorganized the Command to establish a series of joint 
functional component commands that correspond to the mission areas of 
the STRATCOM.
    If confirmed, would you maintain or modify this structure?
    Answer. I do not have any present plans to modify this structure. 
As my understanding of the missions evolves, and integration matures, I 
will assess command mission effectiveness and recommend changes as 
appropriate.

                       BALLISTIC MISSILE DEFENSE

    Question. How do you view the role of the Commander, STRATCOM, 
related to ballistic missile defense?
    Answer. The UCP directs STRATCOM to plan, integrate, coordinate 
global missile defense operations and support for missile defense, as 
well as to develop and advocate missile defense characteristics and 
capabilities for all combatant commands. If confirmed, this is an area 
that I will focus on to be sure I clearly understand the command's 
authorities and responsibilities as well as those of the regional 
combatant commanders and the MDA.
    Question. If confirmed, would you recommend or support any changes 
in the authorities of Commander, STRATCOM, as they relate to ballistic 
missile defense?
    Answer. As of today I would not recommend any changes. If 
confirmed, I will continue the close working relationships with fellow 
combatant commanders and the MDA that have been established, and make 
recommendations to the Secretary of Defense ensuring the appropriate 
authorities are in place to support the defense of our Nation and our 
friends and allies.
    Question. If confirmed, what role would you anticipate playing in 
the assessment of the military utility of ballistic missile defenses 
against short-, medium-, and long-range ballistic missiles?
    Answer. DOD regulations require STRATCOM to direct, coordinate, and 
report the Military Utility Assessment of the Ballistic Missile Defense 
System (BMDS). The latest version of this report was delivered to the 
Chairman of the Joint Chiefs of Staff on 12 July 2007 and to the 
Secretary of Defense on 27 July 2007. I plan to continue submitting 
this report annually until such time as the BMDS architecture has 
matured and all elements have been transitioned to their respective 
Services.
    Question. What are your views on the relationship between ballistic 
missile defenses and nuclear deterrence?
    Answer. Ballistic missile defense represents an essential component 
of our active and passive defensive measures to support our National 
Military Strategy. Missile defense systems raise our adversaries' 
perceived costs associated with their continued development of 
ballistic missiles. In addition, our ballistic missile defenses enhance 
deterrence by helping to deny adversaries the benefits they might seek 
through ballistic missile attack. As a key component of the New Triad, 
ballistic missile defense enhances global deterrence by complementing 
strike assets and a responsive infrastructure.
    Question. From the perspective of the warfighter, do you believe 
that the spiral acquisition of ballistic missile defenses through 
concurrent fielding, development, testing, and operations is 
appropriate?
    Answer. Yes. The capability-based spiral acquisition process with 
the unique authorities given to the MDA provide critical ballistic 
missile defense capabilities to the Nation faster than the traditional 
processes.
    Question. Do you believe that the exploitation of the operational 
capabilities of the ballistic missile test bed provides a militarily 
useful capability and contributes to deterrence?
    Answer. Yes. I believe this approach can contribute to deterrence 
of a limited long-range attack from North Korea.
    Question. In your view, at what stage in the deployment of missile 
defense capabilities should operationally realistic testing be 
conducted?
    Answer. When conducting operational testing, whether before or 
after fielding, by definition the testing should be as operationally 
realistic as possible. How and when development testing shifts to 
operational testing and then follow on operational testing (classically 
done after fielding) varies from program to program. I am not informed 
enough at this point to have an opinion on at what stage in the 
deployment of particular missile defense capability that operationally 
realistic testing should be conducted. If confirmed, I will work 
closely with MDA to understand their plans and criteria for deployment 
of the various capabilities they are developing.
    Question. In your view, what is the threat scenario driving a 
decision to place interceptors in Eastern Europe, including both timing 
and location?
    Answer. The threat scenario involves an Iran that threatens Europe 
and the U.S. Homeland with ballistic missiles. Iran has demonstrated 
ballistic missile capabilities which make the ballistic missile threat 
against Europe real today and, in the future, possible against the 
United States. Add that to Iran's President publicly threatening 
neighboring states, and Iran's developing nuclear program and I would 
conclude that this is a threat and scenario we should address sooner 
rather than later. If we choose to address this threat to our allies 
and ourselves with a missile defense system then the selection of the 
location for the deployment of this system becomes one dependent on the 
geometry of missile trajectories and desired reaction timelines. If 
confirmed, I will consult with MDA to better understand their 
considerations for recommending specific deployment locations.
    Question. In your view, what are the opportunities to work 
collaboratively with Russia to address emerging ballistic missile 
threats and the means to address such threats?
    Answer. I think there are both technical and diplomatic 
opportunities to work with Russia for the benefit of mutual national 
security concerns over the ballistic missile threat. The recent Russian 
proposal to use one of their radar systems is worth exploring and 
encouraging.

                                 SPACE

    Question. What is your view on the responsiveness of current space 
systems to meet warfighter needs and what are the opportunities for the 
Operationally Response Space program to meet military and other space 
requirements?
    Answer. I think the current systems we have on orbit are very 
responsive to warfighter needs today. That said, we should continue to 
look for ways to make them even more responsive. We should also 
continue to explore the feasibility of rapidly deploying capabilities 
that can augment regional combatant commander emergent needs or 
replenish lost capabilities should our current systems come under 
attack. We should also look for ways to more rapidly deploy 
breakthrough technological developments into the space domain. Today, I 
believe these are the opportunities that the Operationally Responsive 
Space (ORS) program should explore.
    Question. What is your view of the ability of the DOD to develop 
and deploy space systems in a cost-effective and timely manner?
    Answer. I believe we have this ability. It takes capable government 
and industry leadership in our program offices, requirement discipline, 
targeted technological investment to reduce technical risk prior to 
program start, and stable funding after program start.
    Question. What steps, if any, do you believe might be necessary to 
improve the responsiveness of current space systems?
    Answer. We need to completely re-architect the way we do space 
surveillance and develop space situational awareness for our 
operational commanders. Today, we have a legacy Cold War architecture 
that is not responsive to today's needs let alone tomorrows.
    Question. In your view, what are the most important unmet 
requirements for space systems?
    Answer. The need for adequate surveillance and reconnaissance of 
the space domain, the regional combatant commander needs for 
surveillance and reconnaissance in their areas of responsibility and 
the need for increased global satellite communications bandwidth to 
support global military operations.
    Question. What do you believe should be done to meet those 
requirements, and what space programs should be accorded highest 
priority?
    Answer. If confirmed, I will continue to be an advocate for the key 
enhancements required of our future space systems. I will also advocate 
through my Service components for investments in science and technology 
to maintain our pre-eminence well into the future. In the near term, 
programs supporting improved Space Situational Awareness capabilities, 
improved Surveillance and Reconnaissance, and increased bandwidth would 
be a high priority.
    Question. How important, in your view, is persistent surveillance? 
What programs do you believe are best able to provide this capability?
    Answer. Persistent surveillance is paramount to developing a better 
understanding of adversary intentions and a key contributor to a 
credible strategic deterrent. It is also important to the successful 
conduct of combat operations at the operational and tactical level of 
warfare. Shorter revisit times provided by enhanced persistence can 
increase opportunities to operate inside an adversary's decision cycle. 
I believe we need to continue to work on ways to better integrate our 
airborne and space-based Surveillance, and Reconnaissance system so 
they can be employed in a complementary manner to increase the 
persistence our combatant commanders require.
    Question. In the National Defense Authorization Act for Fiscal Year 
2004, Congress approved a national policy to support two space launch 
vehicles, or families of launch vehicles, capable of launching national 
security payloads into space. Recently the two launch vehicles were 
combined into one company to provide launch services to the U.S. 
Government.
    What are your expectations with respect to efficiencies, and when 
would you expect these efficiencies to begin to be realized?
    Answer. Last year, ULA projected annual savings on the order of 
$150 million per year starting in 2011. These numbers were developed as 
a snapshot in time based on expected launch rates. As we have seen in 
the past, these rates can both increase and decrease, however, in any 
case there should be efficiencies over the two company approach.
    Question. What, in your view, should the United States do in the 
future, and what steps would you take if confirmed, to ensure continued 
reliable access to space?
    Answer. I would advocate for continued attention to and appropriate 
investment in the mission assurance programs the U.S. Air Force has put 
in place today. I would also advocate for increased investment in the 
sustainment and modernization of our two key launch sites at Vandenberg 
and Cape Canaveral. I would support efforts to explore how we might 
better leverage other launch ranges such as Wallops, Kwajalein, White 
Sands, and Kodiak.
    Question. Do you believe that the Nation should sustain redundant 
space launch capabilities?
    Answer. For today, yes.
    Question. How important, in your view, is the Air Force 
Operationally Responsive Launch program?
    Answer. If you are referring to the ORS Office as required by the 
National Defense Authorization Act of 2007, it is a joint effort vice 
an Air Force program. I believe it is important to explore the 
potential of this program to improve the responsiveness of current 
capabilities, to augment current capabilities, to replenish lost 
capabilities or accelerate deployment of breakthrough technologies.
    Question. In your view, what are the most significant challenges 
that the U.S. faces in military space programs and policy?
    Answer. I believe the most significant challenge is getting a firm 
grasp on Space Situational Awareness, answering the ``who, what, where, 
and why'' of everything in orbit in a timely manner. We must also have 
adequate plans and capabilities in place to ensure the current space 
capabilities we provide to the joint fight can be either defended or 
delivered by alternate means to deter our adversaries from attempting 
to deny our freedom to operate in space.
    Question. Training of U.S. military personnel to understand and to 
incorporate space assets into all aspects of operations is critically 
important to future success.
    How would you address this challenge including ensuring that blue 
force training includes space operations?
    Answer. This has been a major focus area for me in my current 
command. We are currently looking at the standards for how we assess, 
train and develop our airmen in the space career fields and also how we 
as an Air Force deliver the right level of education for all airmen at 
our basic, intermediate and advanced schools. If confirmed, I will 
advocate for increased support to the National Security Space Institute 
and ask for an examination of our course curriculum in our joint 
schools to see if we are conducting the right level of space education 
in those institutions. I will also advocate for the inclusion of space 
scenarios in our joint exercises to heighten awareness of the necessity 
to include consideration of this domain in future conflicts.
    Question. What role does the National Security Space Institute play 
in the training process, and how could their training programs be 
improved?
    Answer. The National Security Space Institute is the DOD's premier 
focal point for space education and training. It compliments existing 
space education programs provided by the services by teaching joint 
policy and doctrine, acquisition and integration, and preparing 
warfighters for joint military operations. While not a joint 
organization, it is operating in a joint manner. Continued efforts 
should be made to attract space cadre from all services and coalition 
partners, to establish firm community educational requirements and to 
provide stable funding to support these requirements.
    Question. What, in your view, are the priorities for improving 
space situational awareness?
    Answer. We must be able to improve our ability to rapidly detect 
and track objects in orbit to evolve from cataloguing to understanding 
and anticipating the purpose of each object in orbit. While sustaining 
our current systems, we need to simultaneously improve our sensor 
coverage of the space domain with a mix of ground and space-based 
sensors while improving the data transmission architecture and 
equipment necessary to fuse the data we collect into useable 
information for the Joint Space Operations Center (JSpOC) Commander. At 
the same time, we need to invest in the appropriate command and control 
equipment to allow the JSpOC Commander to fulfill his mission of 
supporting STRATCOM and the other regional and functional combatant 
commanders. Additionally, we must continue to foster collaborative data 
sharing with our allies and their systems to enhance global coverage.
    Question. What programs and policies, in your view, should be 
changed or added to ensure adequate space situational awareness?
    Answer. I think as a government, we should examine the potential 
utility of a code of conduct or ``rules of the road'' for the space 
domain, thus providing a common understanding of acceptable or 
unacceptable behavior within a medium shared by all nations.
    Question. In 2002, the Executive Agent for Space was established 
and the responsibility for space programs was consolidated under the 
Executive Agent, the Under Secretary of the Air Force. This 
consolidation was later undone, and today the responsibility for space 
program management is spread among three positions.
    What are your views on how military and national security space 
should and could be integrated?
    Answer. In the area of operational planning and execution, I 
believe it is an imperative that military and national security space 
be integrated. STRATCOM created the JSpOC to ensure a more focused 
global command and control of DOD space operations. Their and the NRO's 
efforts to better integrate the JSpOC and NRO operations center and to 
share data are key to the successful conduct of space operations in any 
future conflict.
    Question. In your view, what role should the National Security 
Space Office (NSSO) play in integrating military and national security 
space?
    Answer. My view is that the NSSO should assess existing national 
security space acquisition strategies, plans, and programs in order to 
advise national security space decisionmakers on matters affecting the 
acquisition of national security space capabilities.
    Question. In your view, should the role of the NSSO be modified or 
expanded in any way?
    Answer. Given the changes in various authorities in the department 
over the past year, I believe NSSO roles and functions should be re-
examined by the Executive Agent for Space.

                         CRUISE MISSILE DEFENSE

    Question. In your view, how serious is the vulnerability of our 
Nation and deployed military forces to the cruise missile threat?
    Answer. Cruise missiles represent a credible threat to the 
Homeland, deployed forces and allies. The preponderance of the cruise 
missiles under development can carry nuclear, biological, or chemical 
warheads and sub-munitions. Thus, prudent defense planning, active 
defense design, and command and control are required to mitigate the 
threat.
    Question. What role do you believe STRATCOM should play in the 
cruise missile defense of our Nation?
    Answer. The STRATCOM role in the cruise missile defense of our 
Nation should align with our current mission to integrate global 
missile defense. By leveraging the Command's unique ballistic missile 
defense advocacy and requirements role, similar cruise missile defense 
capability requirements could be smoothly integrated into existing 
processes.

                           NUCLEAR DETERRENCE

    Question. Do you believe that there is a minimum number of 
strategic nuclear weapons needed to sustain a viable deterrent posture?
    Answer. In today's world and for the foreseeable future, yes. The 
size and composition of our nuclear forces should be determined by 
taking into account a broad range of political-military considerations, 
of which deterrence is but one factor. I fully support the President's 
commitment to reduce the nuclear stockpile to the lowest level possible 
consistent with our national security needs.
    Question. In your view, is there a relationship between U.S. 
nuclear deterrence policy and nonproliferation policy? If so, please 
describe the relationship.
    Answer. Yes, I believe there is a relationship. A credible U.S. 
nuclear deterrent, in concert with treaty and alliance structures, 
assures allies that the U.S. will deter, prevent, or limit damage to 
them from adversary attacks. This removes incentives for many of them 
to develop and deploy their own nuclear forces thereby encouraging 
nonproliferation.
    Question. There has been much discussion in the press and elsewhere 
about the need for a new discussion on nuclear weapons policy. Former 
Senator Sam Nunn, and former Secretaries of State George Shultz and 
Henry Kissinger, and former Secretary of Defense William Perry, in a 
joint editorial in January, 2007, called for the complete elimination 
of nuclear weapons. If confirmed as Commander of the STRATCOM, you 
would be involved in such discussions and in shaping the next U.S. 
Nuclear Posture Review.
    In your view, what are the key questions on which future analyses 
of U.S. nuclear policy should focus?
    Answer. U.S. nuclear weapons policy is the purview of the Secretary 
of Defense. If confirmed, I will provide a combatant commander's 
insights regarding the nuclear capability requirements necessary to 
perform the missions assigned to U.S. nuclear forces under my command 
by the Secretary of Defense. Some of the key questions I would think 
should be examined for any future analyses include: Are nuclear weapons 
still key to the national security interests of the U.S. and STRATCOM's 
specific strategic deterrence mission? If not, what alternative 
capabilities exist or should be fielded to meet those needs? If so, 
what levels of force do we need to sustain and how should we proceed to 
properly organize, train and equip them for the future?

                      RELIABLE REPLACEMENT WARHEAD

    Question. The proposal for a Reliable Replacement Warhead (RRW) 
included in the fiscal year 2008 budget request seeks authority for an 
early phase in the nuclear weapons development process. Three of the 
relevant congressional committees have recommended that the RRW proceed 
with phase 2A development only, the fourth committee recommended no 
funding for the RRW. Work in phase 2A would, if eventually approved and 
funded, begin to provide some understanding as to whether RRW could 
meet the goals established.
    One of the goals is that it would be deployed without nuclear 
weapons testing. Do you support this goal?
    Answer. Yes.
    Question. One of the goals is that it would enable additional 
reductions to the overall stockpile. Do you support this goal?
    Answer. Yes.
    Question. One of the goals is that it would increase the safety and 
security of the weapons themselves. Do you support this goal?
    Answer. Yes.

                     HARD AND DEEPLY BURIED TARGETS

    Question. In your view, how adequate are current efforts to address 
hard and deeply buried targets?
    Answer. In my current position, I am not well enough informed as to 
the adequacy of current efforts. If confirmed, I will examine our 
current efforts. That said, it is clear that potential adversaries 
protect their most highly valued assets in hardened and deeply buried 
facilities. Deterrence requires that we possess a full spectrum of 
capabilities to hold these highly valued assets at risk, whether 
kinetically or nonkinetically. I support ongoing efforts to deliver the 
robust suite of intelligence, planning and strike capabilities 
necessary to enable full dimensional defeat of these facilities and the 
high value assets they protect.
    Question. If confirmed, would you support or recommend steps to 
improve the management or coordination of development efforts to hold 
at risk hard and deeply buried targets?
    Answer. If confirmed, I would fully support an integrated 
examination of the suite of capabilities necessary to enable full 
dimensional defeat of these facilities and the high value assets they 
protect. I believe an integrated approach would better direct 
development efforts across the broad spectrum of potential military 
solutions--kinetic and nonkinetic.
    Question. Do you support development of new or modified nuclear 
weapons to hold at risk hard or deeply buried targets?
    Answer. The DOD must first define the capability required to hold 
such targets at risk and then evaluate all potential material and non-
material solutions to engage them. I do not believe nuclear weapons 
should be eliminated from consideration as a possible solution.

                              ARMS CONTROL

    Question. In the last several years, the United States ratified the 
Strategic Offensive Reductions Treaty with Russia and withdrew from the 
1972 Anti-Ballistic Missile Treaty.
    What is your view of the significance of strategic arms control 
agreements in the current environment?
    Answer. I believe agreements must be verifiable to the satisfaction 
of the signatories or they are of little value. Also, we need to keep 
in mind that as weapons technologies proliferate around the world, 
predicting which nations will come to possess advanced weaponry is 
becoming increasingly difficult. In light of this, I think we should 
ensure that future treaties are constructed to allow us to protect our 
national interests in an evolving international environment.
    Question. If confirmed, what arms control initiatives, or other 
forms of cooperative initiatives related to armaments, if any, would 
you recommend?
    Answer. Arms control initiatives are in the purview of the policy 
makers in the Department of State, DOD and National Security Council. 
In order to provide my best military advice to those bodies, I would 
first review our current arms control programs to better understand 
where we are today and what we might do better with new initiatives.
    Question. In your view, should the U.S. continue to abide by a 
moratorium on nuclear weapons testing?
    Answer. Given my current understanding of the health and readiness 
of our forces, I would say yes for now. If confirmed, this is an area 
that I will delve further into to better understand plans for 
sustaining the health and readiness of our systems and work closely 
with the Department of Energy, the National Nuclear Security 
Administration, and our national laboratories.
    Question. In your view, what elements of the Strategic Arms 
Reduction Treaty would be beneficial to retain if the treaty is allowed 
to expire in 2009?
    Answer. It is my understanding that official U.S. negotiating 
representatives are now discussing with their Russian counterparts an 
agreement that would continue selected transparency and confidence 
building measures that would continue to benefit both nations, and that 
these elements would build on the openness both nations have 
demonstrated in our mutual willingness to convince each other of our 
sincerity to limit our strategic nuclear systems.

                             GLOBAL STRIKE

    Question. Are you satisfied with service efforts to provide 
appropriate weapon systems and platforms to support the STRATCOM global 
strike mission, including conventional, prompt global strike?
    Answer. Speaking from an Air Force perspective, I feel we are 
headed down a path to develop the technologies that would enable our 
participation in this mission. If confirmed, I will look across all 
Services efforts and work closely with them to fill this capability 
need.
    Question. What strike weapon systems and platforms do you believe 
are most important in this regard?
    Answer. The Air Force-led Prompt Global Strike Analysis of 
Alternatives will be complete in the spring of 2008. This analysis is 
exploring military concepts proposed by the Services and industry to 
identify the concepts best suited to close the prompt global strike 
capability gap. I look forward to seeing the results of this analysis.

                     STOCKPILE STEWARDSHIP PROGRAM

    Question. What is your view of how well the Stockpile Stewardship 
Program is proceeding towards its goal of being able to continuously 
assess and annually certify the U.S. enduring nuclear weapons stockpile 
as safe, secure, and reliable, without the need for underground nuclear 
testing?
    Answer. I do not have a view at this time. If confirmed, I look 
forward to working with the National Nuclear Security Administration to 
better understand details of their Stockpile Stewardship Program.
    Question. In your opinion, what are the biggest challenges for the 
Stockpile Stewardship Program?
    Answer. I have not formed an opinion on the challenges of the 
Stockpile Stewardship Program. If confirmed, I look forward to working 
with the National Nuclear Security Administration to understand their 
specific challenges.

               MILITARY-TO-MILITARY COOPERATION PROGRAMS

    Question. The STRATCOM has a long history of conducting military-
to-military exchanges and discussions with its counterparts in Russia.
    If confirmed, would you continue or expand this dialogue?
    Answer. I would work to expand this dialogue.
    Question. Would you expand your military-to-military programs to 
include other countries, such as China?
    Answer. Yes. That would be my advice to the Secretary of Defense.

                     STRATEGIC FORCES AND MISSIONS

    Question. During the Cold War, the primary mission for strategic 
forces was to deter the Soviet Union from using its nuclear weapons 
and, more broadly, to contribute to U.S. efforts to contain the Soviet 
Union. Strategic forces were therefore synonymous with nuclear forces. 
This isn't the case today, as the wide-ranging missions assigned to 
STRATCOM make clear.
    What, in your view, is the primary mission for U.S. Strategic 
Forces today and in the future?
    Answer. As your question implies, our strategic forces are no 
longer synonymous with our nuclear forces alone. Consistent with the 
missions assigned to STRATCOM, I see our strategic forces as including 
our Global Strike forces (nuclear and conventional), space forces, 
cyber and information operations forces, global ISR forces, and 
ballistic defense forces.
    These forces serve to deter, dissuade and if necessary defeat 
adversary attacks on the U.S. or its allies.
    Question. Should we think differently about the use of strategic 
forces today?
    Answer. Yes, because the scope of those forces and their 
contributions to our security have expanded significantly since the 
Cold War.
    Question. Given the mission for strategic forces, as you define it, 
what capabilities are still needed to carry out that mission?
    Answer. We require survivable, responsive Global Strike forces that 
are second to none, space forces that ensure we have assured access to 
space and the space capabilities that enable all U.S. military forces 
to fight and win when and where necessary, cyber and information 
operations forces that can protect our Nation's access to cyberspace 
and can deny potential adversaries the ability to asymmetrically 
undermine our military capabilities; global ISR forces that can provide 
our military forces information about any adversary necessary to deter 
or defeat them at acceptable cost; and integrated ballistic missile 
defense forces that help dissuade potential adversaries from acquiring 
ballistic missiles, deter adversaries from launching ballistic missile 
attacks on the U.S. or its allies, and limit the damage adversary 
ballistic missile attacks can inflict.

                 NUCLEAR WEAPONS SECURITY AND HANDLING

    Question. If confirmed, will you commit to working with the Nuclear 
Weapons Council to undertake a review of nuclear security and handling 
practices and procedures?
    Answer. Yes.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commander, STRATCOM?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

                Questions Submitted by Senator Jack Reed

          TREATMENT OF CYBER ATTACK AS A LAW ENFORCEMENT ISSUE

    1. Senator Reed. General Chilton, prior to September 11, 2001, the 
United States Government, to a significant degree, treated the threat 
of terrorism inside the United States more as a law enforcement problem 
than as a national security threat that had to be stopped before it 
occurred. Do you believe that we are doing the same thing with the 
cyberspace threat? Is that a problem?
    General Chilton. Current laws treat attacks from within the 
continental United States (CONUS) against the government or its 
citizens as a law enforcement problem, while prevention of attack upon 
the homeland from external threats has historically been the 
responsibility of the Department of Defense (DOD). However, the 
cyberspace threat we face today is unconstrained by geopolitical 
boundaries and norms. The speed of a cyber attack requires a proactive 
approach to limit its effectiveness.
    A cyber attack could appear to originate inside CONUS but actually 
begin from overseas. Getting attack attribution right in minimum time 
is instrumental in developing an appropriate response. Whether 
considered a law enforcement or national security issue, the lead 
department or agency designated to respond must be the best equipped 
and have the authorities to combat the immediate threat.

    2. Senator Reed. General Chilton, the lead agencies in defending 
non-DOD information systems against attack are civil and the posture is 
one of reacting to developing threats with what could be called passive 
defensive measures. Do you believe that there should be a different 
approach, and if so, how would you characterize it?
    General Chilton. Response to the cyber attack threat directed at 
our Nation requires a balanced set of capabilities to ensure DOD, 
government and the civilian sectors are adequately protected. Private 
and governmental organizations charged with defending the .org, .com, 
.gov, and .mil domains continue to become increasingly vulnerable to 
exploitation and attack by our adversaries. The characteristics 
required to deter and defend these cyberspace domains are a balanced 
set of capabilities that are agile, tailorable, persistent, and 
scaleable with the necessary tools to react within the timelines and 
proper authorities that deny the adversary his intended objective.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor

                  AIR FORCE CYBER COMMAND PROVISIONAL

    3. Senator Pryor. General Chilton, on September 12, 2007, the 
Secretary of the Air Force announced the activation of the Air Force 
Cyber Command Provisional (AFCYBER(P)) at Barksdale Air Force Base, LA. 
The cyber domain is characterized by use of electronics and the 
electromagnetic spectrum, including all energy such as radio waves, 
microwaves, and directed energy. Considered to be an operational 
domain, what are the planned roles and missions of AFCYBER(P)?
    General Chilton. Title 10, U.S.C., section 8013, makes the 
Secretary of the Air Force responsible for organizing, supplying, 
training, equipping, et cetera, forces within the U.S. Air Force 
(USAF). As a combatant commander, it would be inappropriate for me to 
answer questions within the Secretary's purview. I look forward to 
partnering with the Air Force as it continues to develop Air Force 
Cyber Command and the integration of its roles and missions with both 
United States Strategic Command (STRATCOM) and DOD information 
operations activities.

    4. Senator Pryor. General Chilton, in an effort to establish a 
permanent Major Command (MAJCOM), what criteria will the Air Force be 
considering for the location of its headquarters?
    General Chilton. Title 10, U.S.C., section 8013, makes the 
Secretary of the Air Force responsible for organizing, supplying, 
training, equipping, et cetera, forces within the USAF. As a combatant 
commander, it would be inappropriate for me to answer questions within 
the Secretary's purview.

    5. Senator Pryor. General Chilton, what is the timetable for this 
decision?
    General Chilton. Title 10, U.S.C., section 8013, makes the 
Secretary of the Air Force responsible for organizing, supplying, 
training, equipping, et cetera, forces within the USAF. As a combatant 
commander, it would be inappropriate for me to answer questions within 
the Secretary's purview.

    6. Senator Pryor. General Chilton, how many tenant units will there 
be? What equipment is needed?
    General Chilton. Title 10, U.S.C., section 8013, makes the 
Secretary of the Air Force responsible for organizing, supplying, 
training, equipping, et cetera, forces within the USAF. As a combatant 
commander, it would be inappropriate for me to answer questions within 
the Secretary's purview.

    7. Senator Pryor. General Chilton, what kind of funding will be 
required? How big will the command be?
    General Chilton. Title 10, U.S.C., section 8013, makes the 
Secretary of the Air Force responsible for organizing, supplying, 
training, equipping, et cetera, forces within the USAF. As a combatant 
commander, it would be inappropriate for me to answer questions within 
the Secretary's purview.

    8. Senator Pryor. General Chilton, does the Air Force have an 
adequate pool of personnel specially trained to qualify as operators in 
this command?
    General Chilton. Title 10, U.S.C., section 8013, makes the 
Secretary of the Air Force responsible for organizing, supplying, 
training, equipping, et cetera, forces within the USAF. As a combatant 
commander, it would be inappropriate for me to answer questions within 
the Secretary's purview.
                                 ______
                                 
               Questions Submitted by Senator John Warner

                        AIR FORCE CYBER COMMAND

    9. Senator Warner. General Chilton, the Air Force is currently in 
the process of standing up the Air Force Cyber Command that will be 
tasked with helping defend America's interests in cyber space. How do 
you anticipate STRATCOM working with a new Air Force Cyber Command and 
the other Services with respect to cyber warfare? What relationships do 
you intend to foster given the mission STRATCOM shares with Air Force 
Cyber Command?
    General Chilton. As the combatant command charged with integrating 
and coordinating DOD Information Operations, including computer network 
defense, I anticipate working closely with the Secretary of the Air 
Force as he develops this new Command, and with United States Joint 
Forces command as the provider of forces. STRATCOM is organized with 
joint functional components for its various mission areas. Cyberspace 
spans Joint Functional Component Command-Network Warfare, Joint Task 
Force-Global Network Operations, and Joint Information Operations 
Warfare Command. I intend to foster mutually supportive relationships 
as we explore how Air Force Cyber Command best fits as a provider of 
warfighting assets into our overall Department mission.

    10. Senator Warner. General Chilton, as the Air Force looks for a 
permanent location for Cyber Command, in your view what characteristics 
will the host region need to provide in order to successfully support 
Cyber Command?
    General Chilton. Title 10, U.S.C., section 8013, makes the 
Secretary of the Air Force responsible for organizing, supplying, 
training, equipping, et cetera, forces within the USAF. As a combatant 
commander, it would be inappropriate for me to answer questions within 
the Secretary's purview.

    11. Senator Warner. General Chilton, would you believe that 
collocation near existing DOD facilities, a well educated workforce 
familiar with DOD, and a variety of advanced research institutions 
would be beneficial for a Cyber Command location?
    General Chilton. Title 10, U.S.C., section 8013, makes the 
Secretary of the Air Force responsible for organizing, supplying, 
training, equipping, et cetera, forces within the USAF. As a combatant 
commander, it would be inappropriate for me to answer questions within 
the Secretary's purview.
                                 ______
                                 
              Question Submitted by Senator Susan Collins

                            ISR CAPABILITIES

    12. Senator Collins. General Chilton, you mention that the largest 
challenge facing STRATCOM is managing the complexities of securing 
cyberspace and space-based capabilities, while meeting the demands of 
the other combatant commands. A July Government Accountability Office 
(GAO) report states that combatant commanders carrying out ongoing 
operations rank the need for intelligence, surveillance, and 
reconnaissance (ISR) capabilities as high on their priority lists. DOD 
is investing in many ISR systems, to meet the growing demand for ISR 
assets in theater. Are we making the right ISR investments to meet the 
warfighter needs?
    General Chilton. Yes, we are making the right ISR investments. 
STRATCOM is a member of all the relevant forums and as the combatant 
commander's advocate for ISR, we ensure that the combatant commander's 
ISR requirements are captured, articulated and considered when shaping 
the budget. Second, through our component, JFCC-ISR, we receive the 
day-to-day combatant command's ISR requirements. We recommend the 
allocation of DOD ISR capabilities and ensure that they are seamlessly 
integrated and synchronized with those of the Intelligence Community to 
support the joint warfighter's priority missions and needs.

    [The nomination reference of Gen. Kevin P. Chilton, USAF, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 25, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Air Force to the grade indicated while assigned to a position of 
importance and responsibility under title 10, U.S.C., section 601:

                             To be General.

    Gen. Kevin P. Chilton, USAF, 0000.
                                 ______
                                 
    [The biographical sketch of Gen. Kevin P. Chilton, USAF, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
           Biographical Sketch of Gen. Kevin P. Chilton, USAF
    Gen. Kevin P. Chilton is Commander, Air Force Space Command, 
Peterson Air Force Base, CO. He is responsible for the development, 
acquisition and operation of the Air Force's space and missile systems. 
The general oversees a global network of satellite command and control, 
communications, missile warning and launch facilities, and ensures the 
combat readiness of America's intercontinental ballistic missile force. 
He leads more than 39,700 space professionals who provide combat forces 
and capabilities to North American Aerospace Defense Command and U.S. 
Strategic Command.
    General Chilton is a distinguished graduate of the U.S. Air Force 
Academy Class of 1976. A Guggenheim Fellow, he completed a Master of 
Science degree in mechanical engineering at Columbia University. He 
flew operational assignments in the RF-4C and F-15 and is a graduate of 
the U.S. Air Force Test Pilot School. General Chilton conducted weapons 
testing in various models of the F-4 and F-15 prior to joining the 
National Aeronautics and Space Administration in 1987. At NASA he flew 
on three space shuttle missions and served as the Deputy Program 
Manager for Operations for the International Space Station Program. The 
general has served on the Air Force Space Command Staff, the Joint 
Staff, the Air Staff, and commanded the 9th Reconnaissance Wing. Prior 
to assuming his current position, he was Commander, 8th Air Force, and 
Joint Functional Component Commander for Space and Global Strike, U.S. 
Strategic Command.

Education:
    1976 - Distinguished graduate, Bachelor of Science degree in 
engineering science, U.S. Air Force Academy, Colorado Springs, CO.
    1977 - Master of Science degree in mechanical engineering, Columbia 
University, New York, NY.
    1982 - Distinguished graduate, Squadron Officer School, Maxwell Air 
Force Base, AL.
    1984 - Distinguished graduate, U.S. Air Force Test Pilot School, 
Edwards Air Force Base, CA.
    1985 - Air Command and Staff College, by correspondence 2001 Air 
War College, by correspondence.

Assignments:
    May 1977-May 1978, student, undergraduate pilot training, Williams 
Air Force Base, AZ.
    May 1978-August 1978, student, RF-4C Replacement Training Unit, 
Shaw Air Force Base, SC.
    August 1978-November 1980, RF-4C pilot and instructor pilot, 15th 
Tactical Reconnaissance Squadron, Kadena Air Base, Japan.
    November 1980-August 1982, F-15C pilot, 67th Tactical Fighter 
Squadron, Kadena Air Base, Japan.
    August 1982-October 1982, student, Squadron Officer School, Maxwell 
Air Force Base, AL.
    October 1982-December 1983, F-15A pilot, instructor pilot and 
flight commander, 9th and 7th tactical fighter squadrons, Holloman Air 
Force Base, NM.
    January 1984-December 1984, student, U.S. Air Force Test Pilot 
School, Edwards Air Force Base, CA.
    January 1985-August 1987, test pilot and operations officer, 3247th 
Test Squadron, Eglin Air Force Base, FL.
    August 1987-August 1988, astronaut candidate, NASA, Johnson Space 
Center, Houston, TX.
    August 1988-May 1996, astronaut, National Aeronautics and Space 
Administration (NASA), Johnson Space Center, Houston, TX.
    May 1996-August 1998, Deputy Program Manager of Operations, 
International Space Station Program, NASA, Johnson Space Center, 
Houston, TX.
    August 1998-May 1999, Deputy Director of Operations, Headquarters 
Air Force Space Command, Peterson Air Force Base, CO.
    May 1999-September 2000, Commander, 9th Reconnaissance Wing, Beale 
Air Force Base, CA.
    October 2000-April 2002, Director of Politico-Military Affairs, 
Asia-Pacific and Middle East, the Joint Staff, Washington, DC.
    April 2002-August 2004, Director of Programs, Deputy Chief of Staff 
for Plans and Programs, Headquarters U.S. Air Force, Washington, DC.
    August 2004-August 2005, Acting Assistant Vice Chief of Staff, 
Headquarters U.S. Air Force, Washington, DC.
    August 2005-June 2006, Commander, 8th Air Force, Barksdale Air 
Force Base, LA, and Joint Functional Component Commander for Space and 
Global Strike, U.S. Strategic Command, Mutt Air Force Base, NE.
    June 2006-present, Commander, Air Force Space Command, Peterson Air 
Force Base, CO.

Flight information:
    Rating: Command astronaut pilot.
    Flight hours: More than 5,000.
    Aircraft flown: F-4C/D/E, F-15A/B/C/D, OV-104A and OV-105A (space 
shuttles Atlantis and Endeavor), RF-4C, T-38, U-2 and VC-11, B-52H

Major awards and decorations:
    Distinguished Service Medal
    Defense Superior Service Medal with two oak leaf clusters
    Legion of Merit with oak leaf cluster
    Distinguished Flying Cross
    Defense Meritorious Service Medal with oak leaf cluster
    Meritorious Service Medal with oak leaf cluster
    Air Force Commendation Medal
    NASA Space Flight Medal with two oak leaf clusters
    NASA Exceptional Service Medal
    NASA Outstanding Leadership Medal

Other achievements:
    Guggenheim Fellow
    Commander's Trophy, Undergraduate Pilot Training
    1982 Secretary of the Air Force Leadership Award
    1984 Liethen-Tittle Award for top graduate, U.S. Air Force Test 
Pilot School

Effective dates of promotion:
    Second Lieutenant - June 2, 1976
    First Lieutenant - June 2, 1978
    Captain - June 2, 1980
    Major - May 2, 1985
    Lieutenant Colonel - June 2, 1989
    Colonel - Jan. 1, 1993
    Brigadier General - May 1, 1999
    Major General - April 1, 2002
    Lieutenant General - Aug. 9, 2005
    General - June 26, 2006
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gen. Kevin P. 
Chilton, USAF, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Kevin P. Chilton.

    2. Position to which nominated:
    Commander, United States Strategic Command.

    3. Date of nomination:
    July 19, 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    Nov. 3, 1954; Los Angeles, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Catherine A. Chilton (maiden name: Dreyer).

    7. Names and ages of children:
    Madison, 17; Mary, 15; Megan, 13; and Morgan, 11.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Air Force Academy Association of Graduates.
    Order of Daedaliens.
    Air Force Association.
    American Institute of Aeronautics and Astronautics.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Guggenheim Fellow, 1976.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify before any duly constituted 
committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                   Kevin P. Chilton, General, USAF.
    This 16th day of July, 2007.

    [The nomination of Gen. Kevin P. Chilton, USAF, was 
reported to the Senate by Chairman Levin on September 27, 2007, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on September 28, 2007.]
                              ----------                              

    [Prepared questions submitted to Lt. Gen. James N. Mattis, 
USMC, by Chairman Levin prior to the hearing with answers 
supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The Department has made great progress in the joint arena 
since the enactment of Goldwater-Nichols. The changes to the Joint 
Officer Management process enacted by the National Defense 
Authorization Act of 2007 have corrected longstanding shortfalls. I 
don't believe there is a need for any major modifications to the act, 
however, given the current world environment and the challenges we face 
we need to build on the successes of Goldwater-Nichols. There is room, 
in my opinion, for additional refinement.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Congress should consider means to increase integration of 
all U.S. Government agencies in appropriate training and force 
readiness environments in order to build the foundation for more 
effective ``whole of government'' approaches to crisis prevention or 
crisis resolution.
    Continue Departmental efforts, such as Capability Portfolio 
Management, to integrate acquisition and resource allocation processes 
in meeting joint capability requirements. In other words, Services 
develop ``Service-Specific'' systems and capabilities after joint 
review and authorization to ensure joint/interoperability issues are 
addressed.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
Commander, U.S. Joint Forces Command (JFCOM)?
    Answer. The Unified Command Plan focuses the command on two main 
missions: 1) providing conventional forces trained to operate in a 
joint, interagency, and multinational environment, and 2) transforming 
the U.S. military's forces to meet the security challenges of the 21st 
century. The Commander, JFCOM, serves as the chief advocate for 
jointness and interoperability, championing the joint warfighting 
requirements of the other combatant commanders. As such, he is 
responsible for five major areas:

        <bullet> Serves as the Primary Joint Force Provider. In this 
        role, JFCOM has combatant command over a large portion of the 
        conventional forces of the U.S. Armed Forces and provides them 
        as trained and ready joint-capable forces to the other 
        combatant commanders when directed by the Secretary of Defense.
        <bullet> Functionally responsible for leading joint concept 
        development and experimentation (CDE) and coordinating the CDE 
        efforts of the Services, combatant commands, and defense 
        agencies to support joint interoperability and future joint 
        warfighting capabilities. The Commander of JFCOM is also tasked 
        with leading the development, exploration, and integration of 
        new joint warfighting concepts and serving as the DOD Executive 
        Agent for joint warfighting experimentation.
        <bullet> Serves as the lead Joint Force Integrator, responsible 
        for recommending changes in doctrine, organization, training, 
        material, leadership and education, personnel, and facilities 
        to integrate Service, defense agency, interagency and 
        multinational capabilities. A recently assigned responsibility 
        in this area is that of Joint Command and Control Capability 
        Portfolio Manager--a DOD effort to improve interoperability, 
        minimize capability redundancies and gaps, and maximize 
        capability effectiveness.
        <bullet> Serves as the lead agent for Joint Force Training. 
        This effort is focused at the operational level with an 
        emphasis on Joint Task Force Commanders and their staffs and 
        the ability of U.S. forces to operate as part of a joint and 
        multinational force. Additionally, JFCOM is responsible for 
        leading the development of a distributed joint training 
        architecture and developing joint training standards.
        <bullet> Leads the collaborative development of joint readiness 
        standards for Joint Task Force Headquarters staffs, functional 
        component headquarters staffs, and headquarters designated as 
        potential joint headquarters or portion thereof, for 
        recommendation to the Chairman.

    In addition to these Unified Command Plans (UCPs) assigned 
missions, JFCOM has been assigned as the executive agent within the 
Department of Defense (DOD) for the following mission areas:

        <bullet> Joint Urban Operations
        <bullet> Personnel Recovery
        <bullet> Joint Deployment Process Owner
        <bullet> Training and Education to Support the Code of Conduct
        <bullet> Joint Experimentation

    Question. What is your understanding of the duties and functions of 
Supreme Allied Commander Transformation (SACT)?
    Answer. The SACT is responsible to the military committee for 
overall recommendations on transformation. He leads transformation of 
the North Atlantic Treaty Organization (NATO) military structures, 
capabilities and doctrines, including those for the defense against 
terrorism in order to improve the military effectiveness and 
interoperability of the Alliance. He cooperates with the Supreme Allied 
Commander Europe (SACEUR) on integrating and synchronizing 
transformation efforts with operational activities and elements. He 
also promotes improvements to the capabilities of NATO forces made 
available by nations, especially for Combined Joint Task Forces and 
NATO Response Force Operations. Specifically, SACT:

        <bullet> Leads, at the Strategic Commander level, the NATO 
        Defense Planning Process, including the development of the 
        Defense requirements review.
        <bullet> Develops Strategic Commander Force proposals within 
        the Force Planning Process and conducts Strategic Commander 
        assessment of national contributions to the NATO force 
        structure in coordination with national military authorities.
        <bullet> Leads, at the Strategic Commander level, the 
        development of NATO Joint and Combined concepts, policy and 
        doctrine, as well as Partnership for Peace military concepts in 
        cooperation with SACEUR.
        <bullet> Leads, at the Strategic Commander level, the 
        development of future Communications Information Systems 
        strategy, concepts, capabilities and architecture.
        <bullet> Leads, for military matters in NATO, partnership for 
        Peace and other non-NATO joint individual education and 
        training, and associated policy.
        <bullet> Assists SACEUR in the education and training of 
        functional commands and staff elements that plan for and 
        conduct operations with multinational and joint forces over the 
        full range of Alliance military missions.

    Question. What are the advantages and disadvantages of serving in 
both of these roles simultaneously?
    Answer. Both Allied Command Transformation (ACT) and JFCOM strive 
for interoperable and interdependent forces. These efforts revolve 
around the mutually supporting themes of operational lessons learned, 
combined/joint training, interoperability, and CDE. It makes great 
sense for one person to wear these two hats since these are parallel 
missions--both are trying to achieve essentially the same goal. If 
confirmed, I will continue to leverage the joint capabilities resident 
in JFCOM with the transformation goals of NATO, as well as integrating 
NATO processes and personnel into JFCOM experimentation and training 
efforts--this is a win/win situation.
    The significant challenge will be one of time management. NATO 
conducts its business in formal high-level forums which require the 
presence of both Strategic Commanders--both of whom are dual hated with 
U.S. and NATO responsibilities. The vast majority of these meetings are 
conducted in Europe. Maintaining the proper balance between JFCOM and 
ACT duties will require my close attention, but it is a challenge that, 
if confirmed, I am ready to meet.

                       BACKGROUND AND EXPERIENCE

    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I'm very fortunate to have had the opportunity to not only 
serve over 35 years in uniform, but also to have commanded troops from 
the platoon level up to my present assignment as Commander of the 1st 
Marine Expeditionary Force, which is also the Marine component for U.S. 
Central Command (CENTCOM). Perhaps one of my most important 
opportunities was leading the Marine Corps' Combat Development Command, 
where I was able to help shape much of the current doctrine and 
training that the Marine Corps has since incorporated. It was also 
there that I was able to co-author, with General Petraeus, the new Army 
and Marine Corps counterinsurgency manual. Over the years, I've had 
what I believe is considerable experience in joint operations and 
working with coalition forces. In every assignment I was fortunate to 
serve for, and lead, brave, innovative, and hardworking people, both in 
uniform as well as senior civilian leadership. Above all, I have tried 
to learn, mentor, and lead at every chance. All of this has prepared me 
for this opportunity.

                             RELATIONSHIPS

    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the commanders of the combatant 
commands. Other sections of law and traditional practice, however, 
establish important relationships outside the chain of command. Please 
describe your understanding of the relationship of the Commander, 
JFCOM, and SACT, to the following:
    The Secretary of Defense.
    Answer. The Commander, JFCOM performs his duties under the 
authority, direction, and control of the Secretary of Defense, and is 
directly responsible to him to carry out its assigned missions.
    Question. The Under Secretaries of Defense.
    Answer. Title 10, U.S.C., and current DOD directives establish the 
Under Secretaries of Defense as the principal staff assistants and 
advisers to the Secretary regarding matters related to their functional 
areas. Within their areas, Under Secretaries exercise policy and 
oversight functions. They may issue instructions and directive type 
memoranda that implement policy approved by the Secretary. These 
instructions and directives are applicable to all DOD components. In 
carrying out their responsibilities, and when directed by the President 
and Secretary of Defense, communications from the Under Secretaries to 
the commanders and the unified and specified commands are transmitted 
through the Chairman of the Joint Chiefs of Staff.
    Question. The Assistant Secretaries of Defense.
    Answer. With the exception of the Assistant Secretaries of Defense 
for Public Affairs, Legislative Affairs, Intelligence Oversight, and 
for Networks and Information Integration, all Assistant Secretaries of 
Defense are subordinate to one of the Under Secretaries of Defense. In 
carrying out their responsibilities, and when directed by the President 
and Secretary of Defense, communications from the Under Secretaries to 
commanders of the unified and specified commands are transmitted 
through the Chairman of the Joint Chiefs of Staff. If confirmed, I will 
work closely with the Assistant Secretaries in a manner similar to that 
described above for the Under Secretaries.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman is established by title 10 as the principal 
military advisor to the President and Secretary of Defense. The 
Chairman serves as an advisor and is not, according to law, in the 
operational chain of command, which runs from the President through the 
Secretary to each combatant commander. The President directs 
communications between himself and the Secretary of Defense to the 
combatant commanders via the Chairman of the Joint Chiefs of Staff. 
This keeps the Chairman fully involved and allows the Chairman to 
execute his other legal responsibilities. A key responsibility of the 
Chairman is to speak for the combatant commanders, especially on 
operational requirements. If confirmed as Commander, JFCOM, I will keep 
the Chairman and the Secretary of Defense promptly informed on matters 
for which I am personally accountable.
    Question. Supreme Allied Commander, Europe.
    Answer. SACEUR is one of two co-equal Strategic Commanders within 
NATO's command structure. As NATO's other Strategic Commander, the SACT 
supports SACEUR in the education and training of functional commands 
and staff elements that plan for and conduct operations, with 
multinational and joint forces, over the full range of Alliance 
military missions authorized by the North Atlantic Council/Defense 
Planning Committee. ACT also conducts and evaluates training and 
exercises of forces and headquarters, in coordination with and on 
behalf of SACEUR. Lastly, ACT supports SACEUR in joint analysis, 
evaluations and assessments of NATO-led operations and forces, 
including NATO Response Force certification.
    Question. The North Atlantic Council/Defense Planning Committee, 
the NATO Chiefs of Defense and Defense Ministers, and the military 
committee of NATO.
    Answer. As one of two co-equal Strategic Commanders within NATO's 
command structure, the SACT provides military advice to the military 
committee, North Atlantic Council and Defense Planning Committee on 
matters pertaining to transformation, as required. The Commander may 
make recommendations directly to the military committee, the 
International Military Staff, national Chiefs of Defense, Defense 
Ministers and Heads of State and Government on transformational matters 
affecting the capability improvement, interoperability, efficiency, and 
sustainability of forces designated for NATO.
    Question. The Secretaries of the Military Departments.
    Answer. The secretaries of the military departments are responsible 
for the administration and support of the forces assigned to the 
combatant commands. The Commander, JFCOM, coordinates closely with the 
secretaries to ensure the requirements to organize, train, and equip 
forces assigned to JFCOM are met. Close coordination with each Service 
Secretary is required to ensure that there is no infringement upon the 
lawful responsibilities held by a Service Secretary.
    Question. The Chiefs of Staff of the Services.
    Answer. The Chiefs of Staff of the Services organize, train, and 
equip their respective forces. No combatant commander can ensure 
preparedness of his assigned forces without the full cooperation and 
support of the Service Chiefs. As a member of the Joint Chiefs of 
Staff, the Service Chiefs have a lawful obligation to provide military 
advice. The experience and judgment of the Service Chiefs provide an 
invaluable resource for every combatant commander. If confirmed as 
Commander, JFCOM, I will continue the close bond between the command, 
the Service Chiefs and the Commandant of the U.S. Coast Guard in order 
to fully utilize their service capabilities, and to effectively employ 
those capabilities as required to execute the missions of JFCOM.
    Question. The combatant commanders.
    Answer. In general, JFCOM is a supporting command--its job is to 
make the other combatant commands more successful. If confirmed, I will 
continue the close relationships with other combatant commanders to 
increase the effectiveness we've created, and continue to build mutual 
support. The joint capabilities required by combatant commanders to 
perform their missions--today and in the future--forms a large basis of 
JFCOM's mission. Today's security environment dictates that JFCOM work 
very closely with the other combatant commanders to execute our 
national military strategy.
    Question. The commanders of each of the Service's training and 
doctrine commands
    Answer. Tasked by the UCP as the executive agent for joint 
warfighting experimentation, a strong relationship exists between JFCOM 
and the Services' training and doctrine commands. General Smith has 
maintained a close working relationship with these organizations and 
their commanders via a monthly component commanders meeting, and if 
confirmed, I will continue these relationships.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges and problems 
confronting the Commander, JFCOM?
    Answer. From my present view outside the wire I would postulate 
that the most significant challenge is meeting the combatant 
commander's force sourcing requirements. The task of providing trained 
and ready joint forces, on a predictable and stable schedule that 
minimizes stress on families while providing adequate time for 
training, will continue to be a challenge for anyone with the Global 
Force Provider mission.
    Second is the continuing challenge of developing capabilities that 
are truly born joint. First and foremost is institutionalizing Joint 
Command and Control. The assignment of JFCOM as the Joint Command and 
Control Capability Portfolio manager appears to be a step in the right 
direction.
    Finally, continuing the overarching transformation of our joint 
force while prosecuting current campaigns will be an ongoing challenge 
as the strategic environment continues to evolve.
    Question. In your view, what are the major challenges and problems 
confronting the SACT?
    Answer. My sense is training forces for deployment to Afghanistan 
and other NATO operations is the most immediate challenge. 
Incorporating and institutionalizing lessons learned in training, 
capability development, doctrine, tactics, techniques, and procedures 
has historically been a problem for any organization. I expect some 
challenges in this area. Transforming NATO military capabilities, 
especially those of the newest NATO members, will be a complex, 
expensive, and time consuming process. Preparing and cultivating 
partner countries for possible accession into NATO I believe will be a 
very delicate and complicated endeavor. Ensuring that the NATO Response 
Force (NRF) is well resourced and remains a vehicle for experimentation 
and transformation is an extremely important aspect of NATO's global 
warfighting capability that I believe will require my attention. 
Finally, working to build bridges and capabilities with Partnership for 
Peace (PfP), Mediterranean Dialogue (MD) and Istanbul Cooperation 
Initiative (ICI) countries will be an important aspect of my 
responsibilities.
    Question. Assuming you are confirmed, what plans do you have for 
addressing them?
    Answer. Since I am not confirmed yet, I have not had great insight 
into the internal workings of either commands, so I cannot give as 
complete an answer as I would like. Certainly, if confirmed, I will 
continue to work with the other combatant commanders, as well as the 
Services through JFCOM's component commands, to shape JFCOM's ability 
to provide the most logical and effective sourcing solutions for the 
joint warfighter. With respect to developing joint solutions while 
programs are still on the drawing board, I would like to further expand 
on the Capabilities' Portfolio Management efforts that are ongoing, and 
look beyond just Joint Command and Control to evaluate other areas that 
would be ripe for this style of management. Finally, I will continue to 
leverage the training and experimentation efforts that the combatant 
commanders and joint warfighters want and need, in order to take a 
holistic approach to shaping combat development capabilities that our 
forces involved in the current fight need in future years.

                          JOINT FORCE PROVIDER

    Question. What is your understanding of the role of JFCOM as the 
joint force provider to meet combatant commander requirements?
    Answer. As the conventional Joint Force Provider (JFP), it is 
JFCOM's goal to source all validated rotational and emergent force 
requirements in support of the combatant commanders. To accomplish 
this, JFCOM provides DOD leadership with the recommended force 
allocation solutions to make proactive, risk-informed force management 
and allocation decisions. JFCOM works to source these force 
requirements through collaborating with JFCOM Service components, each 
of the Services (both Active-Duty and Reserve) and combatant commands' 
to meet combatant commands' force requirements.
    Question. From your experience as Marine Forces Commander, CENTCOM, 
what are your observations and evaluation of the performance of Joint 
Forces Command in meeting your combatant command's force requirements?
    Answer. Overall, JFCOM along with the other stakeholders in the 
Global Force Management process are doing an outstanding job in 
supporting the combatant commands' force requirements. But demand is 
currently outpacing force supply in specific capability areas and the 
current systems are not perfect. Problems remain: force stress, 
persistent shortfalls use of in-lieu-of forces, et cetera. The cunning 
enemy that we face is forcing us to adapt our force and staffing 
requirements. At times, the force providing processes have not proven 
agile enough to keep up with the pace of change and unplanned 
requirements. This is the source of some frustration. To their credit, 
however, JFCOM and other stakeholders in the Global Force Management 
Process are, reviewing their processes: determining how to streamline 
procedures and increase visibility in order to increase responsiveness 
to combatant command force requirements.
    Question. In this regard, include your observations and evaluations 
of the use of `in lieu of' forces to meet theater requirements.
    Answer. In my judgment, in-lieu-of (ILO) forces provide effective 
support to meet theater requirements. ILO solutions are, by definition, 
substitutions of force when the standard force is unavailable. As such, 
ILO solutions provide capability to meet theater requirements that 
would otherwise go unfilled. Of critical importance as ILO forces are 
continued to be employed is ensuring that they have received the proper 
training and equipment in order to enable their effectiveness.
    Question. Based on your evaluation, what in your view are the most 
urgent challenges requiring JFCOM attention and how would you propose 
to meet these challenges or improve the command's efficiency or 
effectiveness as the joint force provider to our combatant commands?
    Answer. The most urgent challenge impacting JFCOM's effectiveness 
as Primary Joint Force Provider is access to high quality force 
readiness and force availability data. JFCOM is teaming with the Office 
of the Secretary of Defense (OSD), the Joint Staff, Service 
headquarters and technical organizations Defense Information Systems 
Agency in several initiatives that are aimed at improving data access 
and visibility. Ultimately, a global visibility capability tool is 
envisioned that will enable JFCOM staff and supported combatant 
commands to more rapidly access information and use it to develop 
recommended force allocations for Secretary of Defense's consideration.

                         JOINT FORCE READINESS

    Question. Joint Forces Command's current mission statement 
acknowledges its responsibility to provide ``trained and ready joint 
forces'' to our combatant commanders. The readiness of our nondeployed 
forces, especially our ground forces, for worldwide commitment has been 
impacted by the ongoing wars in Iraq and Afghanistan.
    What is your unclassified assessment of the readiness of our 
nondeployed land, air, and sea forces?
    Answer. That portion of the armed services making up the ground 
force is essentially either deployed forward in the global war on 
terror or is in some stage of resetting for future deployment. Those 
units that are in reset are challenged in their readiness by equipment 
needs, rotation of manpower and time to train. The Services are doing 
great work preparing these ground forces for their next deployment--but 
every day in reset is crucial to preparing them and, in general, they 
achieve a deployment ready state just in time for their next deployment 
rotation. The air and maritime forces are more ready across the board, 
but specific skill sets within those forces are also stressed due to 
deployments (e.g., Military Intelligence, EOD).
    Question. What policies, programs, or actions would you 
specifically propose to strengthen the readiness of our nondeployed 
air, land, and sea forces?
    Answer. Continued support of Congress to provide resources 
necessary to facilitate rapid force reset and recapitalization is 
probably the most important single element to ensure a strengthening of 
force readiness.

                      READINESS REPORTING SYSTEMS

    Question. Global Status of Resources and Training System (GSORTS) 
measures unit readiness for combat missions at the high end of the 
spectrum of war rather than counterinsurgency, stabilization or other 
contingency missions. The Department has developed and begun fielding 
the Defense Readiness Reporting System (DRRS) to replace GSORTS.
    Based on your years of tactical unit command, both in garrison and 
while deployed, what are your views of the importance of a 
comprehensive, objective, accurate, reliable, adaptable, and timely 
readiness reporting system?
    Answer. A readiness reporting system as you have described is 
obviously important. The readiness reporting system provides the basis 
for force analysis that yields readiness and availability information 
that underpins JFCOM's recommended sourcing solutions to meet the 
geographic combatant commander's force needs.
    Question. What in your view should be the requirements of a 
readiness reporting system capable of meeting Joint Forces Command's 
mission as joint force provider?
    Answer. JFCOM has described the technical requirements for a 
readiness reporting system mission tasks or a spectrum of military 
missions that supports and dovetails with the aforementioned Global 
Visibility Capability tool. In general terms, the readiness system 
should reflect objective readiness metrics and subjective assessments 
of a force's ability to carry out specific mission tasks or a spectrum 
of military missions.
    Question. In this regard, is it more important for Joint Forces 
Command to have a clear picture of available Service capabilities or 
the readiness data on specific units and systems, or both?
    Answer. I would expect that JFCOM would require both to perform its 
Joint Force Provider role. JFCOM currently works with its Service 
components and each Service to generate the shared understanding of 
what Service capabilities are available and why they are available--
based on unit readiness data. In its effort to improve Joint Force 
Provider processes, JFCOM has defined needs for the Global Visibility 
Capability tool include:

        <bullet> Force availability
        <bullet> Force capabilities identifies
        <bullet> Force structure
        <bullet> Force readiness
        <bullet> Global Force Management (GFM) strategic guidance 
        (priorities)
        <bullet> Force location
        <bullet> Force apportionment
        <bullet> Common operating picture
        <bullet> Works in progress (pending changes in the force)

    Question. What weight would you assign to each of the requirements 
you identify?
    Answer. As JFCOM and other GFM stakeholders focus on development of 
the Global Visibility Capability tool high priority items include: 
force availability, force capabilities identifier, force structure, 
force readiness. GFM strategic guidance, force location and force 
apportionment are medium priority. Common operating picture and works 
in progress are low priority.
    Question. What is your understanding of or experience with the new 
Defense Readiness Reporting System (DRRS)?
    Answer. The DRRS provides enhanced capability, and if we achieve 
its goals, it can provide us solid foundation for force planning. I 
believe this system is an improvement over previous reporting systems 
although I need to discuss DRRS with the service components to 
determine their confidence in the system before declaring my own 
overall assessment.
    Question. How would you evaluate this new system's ability to 
assess the personnel, equipment, and training readiness of forces and 
its utility in support of Joint Forces Command's joint force provider 
process?
    Answer. DRRS is a subjective readiness reporting system that 
focuses on evaluation of a force's ability to execute mission essential 
tasks rather than measure equipment, supply, manning and training 
levels as a means of assessing readiness. DRRS continues to evolve and 
its full potential to succeed as a readiness system remains to be seen.
    Question. One of the concerns about the GSORTS and DRRS is the use 
or misuse of the commander's ``subjective upgrade.'' Commanders are 
authorized to raise or lower their reported level of readiness in a 
more subjective fashion than is otherwise required in a strict 
application of objective standards as defined in the readiness 
reporting regulation.
    Based on your years of tactical unit command, in general have you 
used this authority to subjectively upgrade or downgrade your readiness 
reports? If so, what philosophy has guided your use of subjective 
upgrade or downgrade?
    Answer. I have used subjective reporting in the past within the 
parameters of the reporting system at the time. If the reporting system 
directs an assessment of a units full spectrum combat mission, then the 
full suite of equipment, manning and training is necessary to ready 
that unit to the full spectrum level. If the unit is tasked with a less 
demanding mission, for example, disaster relief--then a subjective 
report of readiness against that lesser mission is helpful to reflect 
that the unit is capable of success with the current state of manning, 
equipment, and training. It's important to keep in mind that readiness 
reports are intended for senior headquarters consumption and their 
information needs and intents are key variables in defining any 
readiness system. I have never hesitated to apply my military judgment 
in assessing the readiness of units I commanded. Quantitative 
assessments alone cannot adequately articulate a unit's readiness and I 
strongly endorse holistic appraisals by commanders.
    Question. How have you mentored your subordinate commanders in 
their use of subjective upgrade in their readiness reporting to and 
through you?
    Answer. The U.S. Marine Corps trains leaders to be honest, 
forthright, critical thinkers and they are selected to leadership 
positions based, in large part, on their demonstration of good 
judgment. I have relied on the good judgment of my subordinate 
commanders to reflect accurately their unit's capabilities within the 
parameters of the readiness reporting system. The readiness of their 
units has been a subject of frequent discussion with my subordinate 
commanders. I expect them to apply their judgment and report their 
honest assessment.
    Question. What in your view are the benefits and dangers of the use 
of subjective upgrades or downgrades?
    Answer. The obvious danger is that an inaccurate report may be used 
as the basis for a decision to commit a unit to a mission that it is 
not prepared to undertake. A benefit may occur when a subjective 
readiness upgrade allows reflection of capabilities that are not 
measured in an objective based system (e.g., a unit with a great deal 
of leadership experience, but has not yet completed all training may be 
more capable than objective assessment reveals).
    Question. If confirmed, how would you monitor the use of subjective 
upgrades or downgrades in the readiness reporting system to ensure that 
Joint Forces Command has the most accurate, reliable, and timely 
information necessary to meet its responsibilities as joint forces 
provider?
    Answer. I will monitor reports of force readiness through my 
Service component commanders who are in the best position to 
continually assess the accuracy and reliability of readiness reports. I 
will also travel and observe unit training and share Joint training 
lessons learned.

                          JOINT FORCE TRAINER

    Question. Joint Forces Command also serves as a major joint force 
trainer. In this role, the command certifies the training readiness of 
Joint Task Force headquarters to plan, organize and manage the 
execution of joint force operations at all levels of conflict. The 
command supports combatant commander joint exercises and mission 
rehearsal exercises prior to deployment of major headquarters. However, 
Joint Forces Command does not certify the training readiness of 
deploying forces at the unit or ``tactical'' level.
    Based on your experience as Commander, Marine Forces, CENTCOM, what 
is your evaluation of the readiness of Army, Navy, Air Force, and 
Marine Corps units as they are arriving in Iraq or Afghanistan?
    Answer. I can speak authoritatively only on the Marine, Navy, Air 
Force, and Army units I have personally observed or commanded over the 
last 6 years of conflict. Technically and tactically their performance 
has demonstrated a high state of readiness. Gaps in our 
counterinsurgency doctrine and training have been addressed as we 
adapted to the enemy situation.
    The readiness of forces arriving in Iraq and Afghanistan for units 
is good, but there is always room for improvement. The readiness of 
individual Augmentees, those personnel who are called upon to fill 
niche capabilities or to augment or round out a unit is improving, but 
still requires more work. This assessment is based on a number of 
factors: improved training, better lessons learned, changes in doctrine 
and capabilities and the readiness to share this across the services 
and through Joint organizations. We have adapted to changes in the 
enemy but we must continue to adapt so agility is a key tenet in how we 
improve. The key to this process is transitioning the lessons we 
observe and experience on the battlefield into lessons learned in our 
training, doctrine, tactics techniques and procedures. It is also about 
recognizing and pushing forward the capabilities we need to the 
warfighter as soon as they are ready and have been evaluated.
    As the Joint Force Provider I will be committed to working through 
our Components Commands Air Combat Command, Marine Forces Command, 
Fleet Forces Command, and Army Forces Command, Services, and the 
combatant commanders to make sure we provide the most ready forces that 
meet combatant commander criteria across the globe. One of my first 
tasks will be to assess this readiness with the Components and take 
stock of combatant commander requirements and then ensure that JFCOM 
provides and supports those units going into harm's way.
    As the Joint Force Trainer I will continually assess and make 
improvements in Joint training through Joint Headquarters Mission 
Rehearsal Exercises, Joint Task Force training certification, Joint 
Operational Analysis, and through direct interaction with the combatant 
commanders. We will also review individual Augmentee training and 
improve it using capabilities such as the Joint Knowledge Online system 
that is designed to support the U.S. and coalition force individual 
augmentees from predeployment, through deployment and post deployment 
to provide courses and a place to ask the expert. I look forward to the 
challenge of improving our readiness and training.
    Question. Based on your observations and evaluations, should JFCOM 
be assigned a greater role in setting standards and the certification 
of the training readiness of tactical units prior to their deployment?
    Answer. I believe that the Commander of the unit together with 
their higher headquarters which is usually a JFCOM Component is in the 
best position to certify training readiness of the units. Setting 
standards for readiness is primarily accomplished by the combatant 
commander and the Service but as the Commander, JFCOM, I will 
continually assess and provide support to ensure that our troops are 
trained and ready. This will include realistic training for commanders 
and staffs of Joint Task Force Horn of Africa, Multi-National Force-
Iraq, Multi-National Corps--Iraq, and Combined Joint Task Force 82 in 
Afghanistan. Significant expansion of joint distance learning tools 
such as the Joint Knowledge Development and Distribution Capability. We 
will continue to improve enabling technology for all major Service 
training centers and combatant commanders to train together in a 
distributed environment through the Joint National Training Capability 
(JNTC). We will continue to provide dedicated assessment teams to Iraq 
and Afghanistan to identify areas for improved command and control of 
U.S. and multi-national forces and as Commander of ACT I will ensure 
that these improvements are shared throughout NATO.

                            LESSONS LEARNED

    Question. One of JFCOM's missions is to conduct lessons learned 
studies that can result in changes to joint tactics and doctrine. These 
efforts are informed by the command's wargaming experimentation 
program, as well as a number of advisors, including retired general 
officers, who have been sent to Iraq to review the operational 
situation.
    Based on your experience as Commander, Marine Forces, CENTCOM, what 
are your observations and evaluation of the Joint Forces Command's 
lessons learned efforts?
    Answer. JFCOM's Joint Center for Operational Analysis (JCOA) 
embedded collection teams with the Joint Force Commander's Headquarters 
during the course of operations. Those forward teams were in daily 
communication with each other and reached back to analysts in the U.S. 
This daily information sharing uncovered both immediately applicable 
lessons for the commanders in the field, and provided more 
comprehensive information on causality for subsequent analysis. This 
approach is a great leap forward over sending interview teams forward 
to collect information after the fact as we've historically done. It 
provides a level of timeliness, fidelity and impact that has not been 
achieved in previous lessons learned programs. Service teams have also 
moved to this approach. This method has permitted rapid adaptation and 
sharing of ``best practices'' between our various services and units. 
It is a proven force multiplier in making us learning organizations.
    Question. What are your observations and evaluation of how these 
lessons learned impacted the conduct of operations in Iraq or 
Afghanistan?
    Answer. I observed two types of impacts: the first is the immediate 
impact provided by forward collectors' observations to the operational 
commanders, and the second is the result of subsequent analysis and 
recommendations being shared with senior DOD and U.S. Government 
leadership. JCOA analysis identified lessons and derived 
recommendations that were fed into multiple efforts. As a result of the 
sharing of joint and service lessons learned, training has been 
reoriented in real time, organizations have been modified, and doctrine 
rewritten to strengthen our intellectual approach to this form of war.
    Question. If confirmed, how would you propose to improve the 
command's lessons learned systems?
    Answer. Key to the collection of needed data is trust in the 
purpose and concept of JCOA's embedded missions. I intend to work and 
advocate with my fellow combatant commanders to set the conditions at 
the highest level for the continued success of JCOA's employment as 
primary tool for operational level analytical support to the fielded 
Joint Task Force headquarters. We will continue to infuse a sense of 
urgency in disseminating best practices uncovered by sharing lessons 
learned.
    Additionally, the ability of U.S. forces to turn worldwide 
collected lesson observations into knowledge will reach a new level 
with the implementation this year of the Joint Lessons Learned 
Information System (JLLIS). JLLIS allows for transparency among all the 
service and combatant commands' lessons learned databases. The key for 
JFCOM will be the development of business models to process this large 
amount of information into knowledge, which we can then use to guide 
improvements for the joint warfighter.
    Finally, if confirmed, I intend to engage the Secretary of Defense 
and Chairman on methods for ensuring resource allocations to the 
recommendations that go forward based on our analysis and are approved 
through the Joint Requirements Oversight Council (JROC) process.
    Question. As the Consolidated Disposition Authority, you reviewed 
the investigations into the conduct of marines that resulted in 
civilian deaths in Haditha, Iraq.
    What insights did you gain as a result of this duty?
    Answer. The incident illuminated a number of issues, among them how 
the violent extremists use civilians as cover for their activities as 
well as the enemy's disregard of any historic norms for the protection 
of innocents. In such wars ``among the people,'' our units must 
demonstrate high performance coupled with strong self-discipline and 
cultural understanding coupled with precision fires. We also require 
engaged leaders who act as emotional ``shock absorbers'' for their 
younger troops. Accountability, real and omnipresent, is as critical to 
victory today as is training and equipping our forces.
    Question. If confirmed, how would you incorporate these insights 
into your responsibilities as Commander, JFCOM?
    Answer. I will incorporate the lessons learned from this event into 
joint training evolutions, especially in pre-deployment training for 
units rotating into Iraq and Afghanistan. Live, simulated, and computer 
based training, that replicates the ethical dilemmas found in combat 
will be effective in minimizing these types of events. It is important 
to teach our service men and women when and when not to use their 
weapons. I will work with the services through the JFCOM Components to 
ensure these training capabilities are highlighted. Additional language 
and cultural training for our forces is also helpful in mitigating the 
challenging situations that are often found in a counterinsurgency 
environment. The Haditha incident also demonstrated the need to develop 
better Counterimprovised Explosive Device (CIED) capabilities. I will 
work with the Services and combatant commanders to develop these 
capabilities

          NATIONAL GUARD READINESS FOR CIVIL SUPPORT MISSIONS

    Question. An issue of concern to Congress is the apparent low 
levels of readiness of the National Guard for its domestic or civil 
support missions. The reality is that we do not know with great 
confidence the true ``readiness'' of the National Guard for its 
domestic support missions because there is no national readiness 
reporting system that objectively captures the National Guard's 
personnel, equipment, or training requirements or their status relative 
to those requirements.
    What is your assessment of the National Guard's current readiness 
to respond to the range of domestic contingencies that our states may 
face?
    Answer. I believe the National Guard maintains a good level of 
readiness to respond to the range of domestic contingencies normally 
faced by a State in a given year. This year National Guard forces have 
responded, under state control, to floods, fires, hurricanes, tornados, 
and the tragic bridge collapse in Minnesota. Governors and their TAGs 
generally will not offer National Guard forces for deployment if they 
believe that offering will negatively impact the state's ability to 
respond to its citizens needs. The National Guard forces that have 
returned from deployment to Iraq and Afghanistan generally are at lower 
readiness levels and the Army is working diligently to reset these 
forces.
    Question. What in your view is the role or responsibility of JFCOM, 
as the joint force provider, in developing a readiness reporting system 
that monitors the Guard's readiness for civil support missions?
    Answer. Once the DRRS is fully evolved and National Guard units are 
reporting readiness via DRRS, the mission essential task based 
readiness system could reflect National Guard readiness for civil 
support missions.

                  JOINT REQUIREMENTS OVERSIGHT COUNCIL

    Question. The JROC has the responsibility to assist the Chairman of 
the Joint Chiefs of Staff in identifying and assessing the priority of 
joint military requirements to meet the national military strategy and 
alternatives to any acquisition programs that have been identified.
    How would you assess the effectiveness of the JROC in the 
Department's acquisition process?
    Answer. Yes, in my experience as Commander, Marine Forces, CENTCOM, 
where I have been the ultimate customer for decisions that the JROC 
makes, my belief is that the JROC has been effective at engaging the 
acquisition and programming communities earlier in the requirements 
process to improve JROC decisions and enhance oversight of acquisition 
programs. For example; JFCOM collected and analyzed lessons learned 
from Afghanistan and Iraq. These lessons were compared to the 
Integrated Priority Lists and Joint Quarterly Readiness Reports 
submitted by the combatant commanders. This comparison was then used to 
develop recommended approaches for resolution which were submitted to 
the Joint Staff and JROC. All of these recommendations were endorsed by 
the JROC.
    Question. Do you see the need for any change in the organization or 
structure of the JROC?
    Answer. The JROC provides independent military advice to our senior 
leaders by deciding which issues become validated military requirements 
and which do not. I think the organization and structure of the JROC is 
about right in order to provide that independent military voice. 
However, I would strongly support the Vice Chairman, Joint Chief of 
Staff and the JROC effort to bring together senior leaders, as 
advisors, from across the Department and the Interagency, to inform the 
JROC in making more sound and affordable decisions. I believe the 
combatant commanders also need to have an effective voice in the 
resource decisions of joint requirements and should be include as 
advisors to this important body. It will be the one way that combatant 
commanders can continue to influence the need to keep acquisition 
programs interoperable. If confirmed, I look forward to investigating 
options that include combatant commander representation in the JROC.
    Question. If confirmed, how would you plan to interact with the 
JROC in pursuing the development of improved joint force capabilities?
    Answer. I would offer that the direction that Admiral Giambastiani 
charted is sound and I am confident that General Cartwright will 
continue to lead us in the right direction. All I can offer is that if 
confirmed I will continue to bring the most significant warfighting 
challenges pertaining to JFCOM and the combatant commanders to the 
visibility of the JROC so that the JROC can make the best possible 
decision about future capabilities and programs.
    Question. Do you feel that the Commander, JFCOM, should have a 
larger role in the activities of the JROC, given the unique JFCOM 
mission to support joint warfighting?
    Answer. In my view, we must continue to ``operationalize'' the JROC 
and acquisition processes to respond with agility when Warfighter 
Challenges are presented and validated. The Joint Capability 
Integration and Development System (JCIDS) is designed to impact mid- 
to far-term capabilities and funding (3 years and beyond). The process 
has less flexibility to quickly respond to emerging requirements within 
the PPBE process in the near-term budget years (1-2 years). A variety 
of ad hoc measures have been used to address this challenge.
    Congress has assisted by providing authorities such as Limited 
Acquisition Authority (LAA) to JFCOM. This authority has proven to be 
of great value. One near-term solution is to extend this authority and 
dedicate appropriate resources in order to have funds available to 
quickly acquire joint warfighting capabilities for the combatant 
commanders. In the long-term, the JCIDS process needs to adapt to more 
effectively meet the demands and pace of today's operations. If 
confirmed, I look forward to helping to develop a systemic way to 
address these concerns.

                           JOINT REQUIREMENTS

    Question. Commander, JFCOM, is responsible for advocating for the 
interests of combatant commanders in the overall defense requirements 
and acquisition process.
    From your perspective has the JFCOM effectively represented the 
requirements and needs of combatant commanders to the JROC and the 
military Services?
    Answer. Yes, JFCOM has well represented the requirements and needs 
of the combatant commanders to the JROC.
    Question. In your view, are combatant commanders capable of 
identifying critical joint warfighting requirements and quickly 
acquiring needed capabilities?
    Answer. Yes, as one of the component commanders for CENTCOM it is 
my belief that the combatant commander in working with their component 
commanders is perfectly suited to identify those joint urgent needs for 
adjudication by the JROC.
    Question. What suggestions, if any, do you have for improving the 
requirements and acquisition process to ensure that combatant 
commanders are able to quickly acquire needed joint warfighting 
capabilities?
    Answer. This is a difficult question and one that I will be 
interested in getting my hands around should I be confirmed. I will 
tell you that combatant commanders currently have the ability to 
provide their requirements to the Service acquisition community through 
the Joint Staff. This system works for long-term needs. Combatant 
commanders also have the ability to forward a Joint Urgent Operational 
Need Statement to address their short-term, urgent needs. It is my 
responsibility as a combatant commander in a supporting relationship to 
help them find solutions to their problems.

                      JOINT CAPABILITY DEVELOPMENT

    Question. In your view, how successful has JFCOM been in developing 
and delivering new joint capabilities to the warfighter?
    Answer. I think very successful. JFCOM continues to work with the 
combatant commanders to determine warfighter gaps and challenges and 
look for solutions. JFCOM develops new capabilities, often partnering 
with the Services, and leverages our experimentation expertise, our 
Joint Capability Technology Demonstrations, and our interim joint 
capability development efforts to find solutions that can be 
operationally tested and fielded. For example, JFCOM has partnered with 
Services to develop and field test Machine Foreign Language Translation 
Systems (MFLTS) that enable troops to better communicate with Host 
nation populations. Several thousand of one-way translation devices are 
currently in use and a two-way translation device is undergoing 
developmental testing in Iraq.
    Question. What steps would you take to improve JFCOM's efforts in 
this area?
    Answer. The ability to expeditiously develop new capability hinges 
not only on identifying the right technology, but also on having access 
to the resources (manpower and funding) to effectively pursue solutions 
that meet the warfighter's needs. In addition to R&D funding, interim 
solutions also require temporary operations and maintenance to ensure 
sustainability. If confirmed, I will work with my staff to ensure that 
JFCOM in partnership with Under Secretary of Defense for Acquisition, 
Technology, and Logistics (USD(AT&L)) and others as appropriate, are 
adequately funded and provided the authorities necessary to enable the 
development and fielding of interim solutions, until a Service program 
of record is available to meet combatant commander urgent needs.

                             TRANSFORMATION

    Question. By serving as the Department's ``transformation 
laboratory,'' JFCOM enhances the combatant commands' capabilities as 
outlined in the Department's UCP.
    Do you believe JFCOM should play a larger role in transformation 
and setting transformation policy? If so, how?
    Answer. JFCOM's role and influence in transformation continues to 
grow through constantly expanding interaction with the Services, Joint 
Staff, and OSD in the joint experimentation, joint training, joint 
integration, and joint force providing responsibilities as assigned by 
the UCP. The JFCOM transformation role includes both interactions 
within the existing DOD developmental processes and the ability to act 
as a coordinator of Service, combatant commander, and agency efforts. 
Transformation policy clearly rests with the Department. However, JFCOM 
is afforded substantial and sufficient opportunity to inform 
policymakers and to shape the mechanisms that execute transformation 
policy.
    Question. In your view, what capabilities that have been fielded 
are truly transformational?
    Answer. JFCOM and its partners have fielded several capabilities 
that are truly transformational, not least of which is the Training 
Transformation initiative that combines real forces with individuals 
and crews in simulators and computer-generated forces that integrate 
into a common operational picture for training. This JNTC rides on a 
permanent network that continues to expand around the globe. Units and 
forces can train at instrumented ranges or from home station, depending 
upon their training objectives.
    Enabling capabilities developed by JFCOM and partners, and 
transforming the way operators perform in the field, include:

        <bullet> The Knowledge and Information Fusion Exchange (KnIFE) 
        is a state-of-the-art data fusion capability and operations 
        center that has proved highly successful in meshing hundreds of 
        data sources to provide focused knowledge products on 
        Improvised Explosive Devices (IEDs). KnIFE serves thousands of 
        customers including warfighters in the field and in training, 
        the research and development community, and interagency. KnIFE 
        is a division of the Joint Center for Operational Analysis and 
        is being expanded to address a variety of other asymmetric 
        threats.
        <bullet> The Joint Training Experimentation Network (JTEN), 
        developed as part of the JNTC, created a 24x7x365 persistent 
        network for joint training & experimentation, where none 
        existed before. The persistent network has enabled permanent 
        interconnectivity at the U.S. Secret-level between numerous 
        Service component and combatant commander national training 
        facilities, live instrumented ranges, model and simulation 
        centers of excellence (COEs), and other standing training 
        networks such as the USAF's Distributed Mission Operations 
        Network (DMON) and the Navy's Navy Continuous Training 
        Environment (NCTE).
        <bullet> The Joint Knowledge Development and Distribution 
        Capability (JKDDC) is the DOD Training Transformation (T2) 
        program responsible for transforming individual joint training 
        capability. In the spring of 2007, JKDDC delivered the newly 
        enhanced Joint Knowledge Online (JKO), an enterprise portal 
        system providing access to a learning management system of 
        joint courseware and web-based learning tools and services via 
        Internet, military unclassified and classified networks. JKO 
        provides a more effective and convenient online training 
        opportunity for individuals to prepare in advance for 
        collective training exercises and integrated operations.
        <bullet> JFCOM assisted the geographic combatant commanders as 
        they established core elements for their Standing Joint Force 
        Headquarters. It transformed the concept of readiness for 
        operational-level joint command and control by establishing a 
        permanent, trained and ready organization for the combatant 
        commanders to employ when needed, providing joint C2 capability 
        to a Service-proved headquarters.
        <bullet> Joint Enabling Capabilities are a transformational 
        approach to meet the requirements of the combatant commanders 
        that are not currently met by the Services. They include 
        Standing Joint Force Headquarters Core Elements, the Joint 
        Communications Support Element, the Joint Public Affairs 
        Support Element and Quick Reaction Teams of targeteers and 
        collection managers from the Joint Transformation Command--
        Intelligence. Several other Joint Enabling Capabilities are 
        under development and in testing with operational forces.
        <bullet> Advanced terrain analysis prototype software 
        (Geospatial Analysis and Planning Support (GAPS)) to meet the 
        warfighter requirements for rapid route analysis and 
        identification, sensor planning and placement and counter fire 
        systems planning and placement.
        <bullet> Machine Foreign Language Translation System--
        facilitates working with and establishing rapport with the 
        indigenous population.
        <bullet> Synthetic Environment for Analysis and Simulation 
        (SEAS)--this tool models and simulates reactions of 
        institutions, organizations, and individuals that make up a 
        society and their effects on joint operations, and has been 
        employed in support of International Security Assistance Force 
        (ISAF).
        <bullet> Angel Fire--a Near Real Time Persistent Forensic 
        Capability, currently being tested on the battlefield by the 
        Marine Corps. The optical sensor device covers a 16 square 
        kilometer area and can provide the joint warfighter with a 
        dedicated sensor to rapidly respond to enemy actions and near 
        real-time reaction to an improvised explosive device (IED).

    Question. What capabilities currently under development do you 
consider to be truly transformational and deserving of support within 
the Department and Congress?
    Answer. The most critical lesson we have learned from Iraq, 
Afghanistan, and Katrina is the need for a whole of government approach 
to achieve national objectives. JFCOM experimentation in knitting 
together the interagency and multinational communities has already 
resulted in significant cross-domain collaborative advancements and 
more realistic training for all who participate.
    This whole of government approach also has considerable 
applicability to the structure and functions of the new AFRICOM and for 
the emerging regional objectives of Commander, SOUTHCOM. Applying 
organizational and functional principles developed in experimentation 
venues and refined in training venues can have a transformational 
effect in our regional security cooperation and conflict prevention.
    Operational modeling and simulation capability has a potentially 
transformational effect on the operational planning, mission rehearsal, 
operations execution, and effect assessment requirements of operational 
commanders. New modeling capabilities that focus on the human element 
have great potential for planning and assessing the effects of 
irregular warfare.
    Ensuring the integration and interoperability of U.S. and coalition 
command and control capability is one transformational area that JFCOM 
is making a major effort. Recently, JFCOM led a large joint and 
coalition combat identification exercise at the Army's National 
Training Center in California and Nellis AFB, NV. All 4 U.S. Services, 
Special Operations Command, and partners from 8 NATO/ISAF nations 
participated, bringing a total of 1,800 personnel, 40 vehicles, and 40 
aircraft to the desert for 2 weeks to examine 16 different combat 
identification technologies as well as procedures for executing digital 
joint and combined close air support. I look forward to seeing the 
after action report and technology analysis.
    The management of DOD requirements, resources, and acquisition 
strategy across specific capability portfolios to improve efficiency 
and interoperability and reduce redundancy is another key 
transformational area where JFCOM has a major effort ongoing. As 
directed by the Deputy Secretary of Defense, JFCOM is the Joint Command 
and Control Capability Portfolio Manager, one of four such portfolio 
efforts across DOD. We have just finished a 5 month effort geared 
toward recommending changes to Service programs for the fiscal year 
2009 program objective memorandum (POM) that provide DOD with a more 
balanced and responsive Joint Command and Control portfolio. We will do 
the same for fiscal year 2010 and beyond.
    Question. What metrics should the Department use to determine 
whether it is investing enough resources and placing a high enough 
priority in the transformation of its capabilities?
    Answer. The ultimate metric is how well the capability meets the 
current and future needs of the customer--the combatant commanders and 
Services. Assessing these metrics requires constant engagement with 
regional and other functional commands, the Service Chiefs, and other 
agency staffs. Overall metrics need to be at the national strategic 
level across the whole of government. Any metric that is solely focused 
on DOD tells only part of the story.
    Question. In your view, what role should JFCOM play in supporting 
the Department, including the Services and defense agencies, in 
achieving successful systematic migration of mission capabilities to 
these new military technologies?
    Answer. This is one of those questions in which I must immerse 
myself if I am confirmed, because being outside JFCOM until now hasn't 
given me the familiarity I need to answer. The answer probably lies 
somewhere between providing the joint context as JFCOM currently does 
for all Service and defense agency acquisition decisions, and some 
measure of greater influence over acquisition decisions. What I do know 
is that no capability we provide will survive unless it meets a 
warfighter's need and is ultimately sustained in a Service or joint 
program of record.

                          BUDGET AND RESOURCES

    Question. Since 2001, the JFCOM budget authority has risen 
considerably because of additional functional mission responsibilities 
assigned to the command.
    Have the increases kept pace with the JFCOM taskings and do you 
foresee the need for future growth?
    Answer. For the most part, resources have kept up with the growing 
mission responsibilities. I understand, the resources to support the 
JFCOM portfolio of solutions and capabilities has been a departmental 
effort over the past few years, and the informed allocation of those 
resources is intended to provide for that mission in support of 
delivering the appropriate joint tools to the warfighter. As in any 
organization available resources drive the prioritization of work.
    As for future growth, I can not discount that possibility. As joint 
warfighting capability gaps are identified, it will be critical for the 
department to assess the risk, prioritize their effect on the overall 
ability of the force to complete the mission, and then determine the 
appropriate allocation/reallocation of resources as required to 
mitigate or accept that risk.
    Question. In what specific areas do you see the need for future 
growth?
    Answer. This is difficult to answer without having had a chance to 
evaluate the command performance, but I believe there may be two areas 
once evaluated to be ready for expansion, but that will need to be a 
departmental and Presidential decision.
    First is in the area of joint force management. Our current global 
force management operations: emergent force sourcing, rotational force 
sourcing, individual augmentation, exercise force sourcing, and 
adaptive planning contingency sourcing, continue at an unprecedented 
pace. This elevated operating tempo has placed significant stress on 
the global force pool and highlighted the need for continued 
improvements in visibility and sourcing of global force requirements, 
adaptive and contingency planning, global assessment of risk, and rapid 
evaluation of force readiness and availability.
    Second, as we expand the scope of the department's capability 
portfolio managers, there will be some near term requirement to 
selectively expand the skill set and capacity of those personnel 
executing the Joint Command and Control (JC2) capability portfolio 
management functions for the Department at JFCOM. The critical effect 
desired will be to foster the integration and interoperability of 
strategic, operational and tactical C2 within a net-enabled 
environment; scalable C2 capabilities responsive to evolving command 
structure size, and seamlessly integrated with components and mission 
partners; and the phase-out of non-interoperable, excess and/or 
duplicative capabilities.
    Lastly, as the joint enabling capability concept expands to fill 
more and more of the combatant commanders' force requirements not met 
by Service forces, there may be a need for increased manpower and 
funding to maintain the readiness of these operational-level 
capabilities commensurate with combatant commander requirements and the 
readiness level of the tactical forces they command.
    Question. Do you believe that JFCOM has adequate staff to 
efficiently manage this increase in budget authority?
    Answer. It is my understanding that efforts are underway to examine 
that question. The rapid growth in the command's resources since 2001, 
combined with a complex resourcing environment is driving JFCOM toward 
an internal review that looks at business management and execution 
processes to ensure that the command is adequately staffed. A quick 
analysis, of the last 6 years of resourcing, appears to show that 
management infrastructure has remained relatively flat, while mission 
resourcing has grown; if confirmed, it is something that I will urge 
the staff to continue to look at as we move forward.
    Question. Do you believe that JFCOM has adequate government 
technical staff to deal with its increasing role in acquisition 
programs?
    Answer. I believe the short answer is no, but if confirmed, I will 
need to investigate this issue more closely. It is my understanding 
that JFCOM is working with the department to determine required 
capacity and capability, and identify the resources (fiscal and 
manpower) needed to effectively execute the Joint Command and Control 
(JC2) portfolio management mission. As JFCOM continues to expand its 
influence and management across the JC2 portfolio, it will be critical 
to develop and build upon the existing acquisition program oversight 
capacity and capability. The likely solution will be a combination of 
organic (JFCOM assigned) and non-organic (matrix'd as required) 
technical staffing to provide the appropriate assessment and review.
    Question. Approximately two-thirds of JFCOM headquarters staff is 
government civilians or contractors.
    In your view, is this large civilian and contractor workforce a 
function of JFCOM's multiple functional responsibilities or is it a 
reflection of a shortage of military personnel?
    Answer. It is my understanding that JFCOM is working to meet the 
needs of combatant commanders today while ensuring we are ready for the 
requirements of tomorrow. In my experience this requires the right mix 
of military, government civilians and contractors who together make up 
an experienced work force. The contractor portion of the workforce 
provides the flexibility to surge to taskings and to work on different 
subject areas that may or may not have traditionally been part of 
JFCOM's expertise. Contractors provide expertise and afford 
organizational agility as missions change or new ones are added. 
Government civilians provide program management, corporate knowledge 
and continuity of effort. As military personnel become less available 
for program management tasks to fill existing billets, they may be 
replaced by government civilians. But government civilians cannot 
replace the fresh operational expertise that military personnel bring 
to solving JFCOM's problem sets.
    Question. Do you believe that JFCOM has an appropriate mix of 
military and civilian personnel?
    Answer. If confirmed, one of my initial tasks will be to review 
JFCOM's work force and ensure it meets mission requirements and most 
optimally utilizes military, civilian and contractor personnel.

                         JOINT EXPERIMENTATION

    Question. How would you rate the success of the joint 
experimentation activities of JFCOM, and the Department as a whole, in 
supporting the development of new concepts of operations?
    Answer. Experimentation plays a useful and proven role in 
transformation for identifying needed near and far term capabilities. 
The art and science of experimentation have evolved considerably since 
the days of Millennium Challenge 02, which cost far too much for the 
learning achieved. Today's experimentation achieves far more at much 
lower cost by employing a distributed network and involving far fewer 
players, who can work from their home stations, all driven and assessed 
by sophisticated, tailored modeling and simulation.
    This increasingly sophisticated experimentation network allows 
conceptual solutions to warfighter challenges to be tested through 
hundreds if not thousands of iterations over short periods of time. 
Testing elements of the supporting operating concepts to the Joint 
Operations Concept process thus becomes much easier and far more 
comprehensive.
    By providing access to all sorts of military and other interagency 
partners, this network has increased DOD-wide productivity and enabled 
the Department to increase value derived from its experimentation 
dollars, whether those dollars are joint or Service-specific.
    Question. What changes would you recommend to increase the 
effectiveness of joint experimentation activities?
    Answer. Recent Department initiatives linking joint experimentation 
to other acquisition and strategic guidance processes will go a long 
way to aligning what have been to date very stovepiped processes. How 
well remains to be seen, since the first information call is only now 
being answered. But I believe this initiative has great potential for 
increasing effectiveness across more than just experimentation.
    The entire body of experimentation work has recently moved from 
being defined as activity-driven to being defined as productivity-
driven, so that venues are now developed directly in response to 
experimentation objectives, rather than objectives being tailored to 
fit existing venues. This should have a considerable impact on 
effectiveness.
    One area requiring considerable improvement is the transition into 
Service programs of record of those solutions validated through joint 
experimentation in order to field and sustain those capabilities for 
the joint operators.
    Multinational and interagency participation and partnership in DOD 
joint experimentation needs to be resourced and expanded.
    Question. Based on your experience, do you believe that the overall 
Department commitment and investment in joint experimentation is 
adequate to ensure the effective integration and interoperability of 
our future forces?
    Answer. The Department is obviously committed to joint 
experimentation. We will move to a higher level of integration when 
defense agencies are fully incorporated in joint experimentation. 
Efforts must continue to better align Service title 10 and joint 
experimentation. Current investments in joint experimentation have 
shown improvement in the integration and interoperability of joint 
forces. Security challenges we face now and in the future mandate a 
comprehensive approach to include interagency and multinational 
partners. Current funding and policy for joint experimentation do not 
facilitate this broadened body of work.
    Question. What do you believe to be the appropriate role for JFCOM 
in determining how the respective Services should invest their 
experimentation dollars?
    Answer. The UCP assigns JFCOM responsibility to lead joint CDE and 
coordinate the CDE efforts of the Services, combatant commanders, and 
defense agencies to support joint interoperability and future joint 
warfighting capabilities. The Commander, JFCOM, is also tasked with 
leading the development, exploration, and integration of new joint 
warfighting concepts and serving as the DOD Executive Agent for joint 
warfighting experimentation. This does not require strict JFCOM control 
of how Services invest their experimentation dollar, but does require a 
clear communication of the planned activities of Service 
experimentation and the ability to develop a common vision of the 
course of experimentation with the Chairman, Joint Chief of Staff, and 
Joint Chiefs. Services can then exercise their appropriate fiscal 
authorities under Title 10, guided by that common vision of the course 
of experimentation.

                            URBAN OPERATIONS

    Question. JFCOM's experimentation and lessons learned efforts have 
had significant recent activity dedicated to understanding and 
development of urban operations concepts.
    What is your assessment of current DOD capabilities to conduct 
urban operations?
    Answer. The capability is improving but there is much work to be 
done in this area. I believe my combat experience during Operation 
Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF) will be 
helpful in this area.
    Question. What major issues need to be addressed to improve those 
capabilities?
    Answer. The center of gravity for success in the urban environment 
is winning the support of the population. They will decide which side 
will succeed. If we win them over, we have millions of allies on our 
side. If we lose their support, we have at best case, millions of non-
supporters; worst case, millions of enemies.
    We gain the support of the population by securing and improving the 
systems that make up the city. This includes basic services such as 
power, water, and sewage, but also the political system, the 
information system, even the social and cultural systems. When we 
successfully provide the population a more compelling view of their 
future than that provided them by our opponents, the population will 
take over and make it impossible for the threat to exist there.
    The tasks associated with securing the broad spectrum of urban 
services are outside our traditional tactical thinking. We also 
understand that this mission cannot be successfully accomplished with 
military capability alone and that we need greater participation from 
the interagency community, where much of this type of expertise 
resides. The requirement for the use of military force to defeat the 
threat has not gone away, but we now understand that military force 
must be precisely applied in a much broader operational context.
    Critical needs include:

        <bullet> Increased capacity for human intelligence.
        <bullet> Greater urban operations reconnaissance and 
        surveillance to assist in the counter-IED fight
        <bullet> Joint command and control systems that enable the 
        integration not only of military capability, but also of 
        interagency capability in a coalition environment.
        <bullet> Precise weapons effects that minimize collateral 
        damage
        <bullet> Strategic communications capabilities that improve our 
        ability to help the population understand the truth about what 
        we are doing and gain their support.
        <bullet> The ability to better visualize the urban operating 
        environment, including the ability to sense through the massive 
        structures of the city
        <bullet> Force tracking in the urban environment to ensure we 
        know exactly where all of our forces are located

    Question. Based on results from the JFCOM Urban Resolve 2015 
experiment last year, efforts are being made to promote the concept and 
fielding of airborne persistent surveillance assets such as Angel Fire.
    What is your assessment of the value of the development of improved 
sensors, aircraft, and downlink technology and the field testing and 
integration of these assets with feeds from other battlefield sensors?
    Answer. It is incredibly valuable. Combatant commanders 
consistently identify ``persistent surveillance'' as a capability gap 
in their integrated priority lists, despite the fact that U.S. and 
Coalition warfighters operate and maintain numerous aerial surveillance 
platforms of varying capabilities. These individual platforms are 
inherently limited in their ability to conduct persistent surveillance 
primarily due to platform design and sensor characteristics, 
particularly against an adaptive, elusive adversary; ISR data derived 
from the platforms/sensors largely remains ``stovepiped'' within the 
platform/sensor architecture until its value is diminished. A critical 
component in implementing this approach is the development/
implementation of common standards, application, interfaces, and data 
registries. If confirmed, I intend to continue to emphasize the 
development of improved sensors and to ensure processes are jointly 
synchronized and focused to enhance ISR integration with warfighting 
capabilities.

           JOINT FORCES COMMAND LIMITED ACQUISITION AUTHORITY

    Question. Congress has provided the Commander, JFCOM, with the 
authority to develop and acquire equipment for battle management 
command, control, communications, and intelligence and other equipment 
determined to be necessary for facilitating the use of joint forces in 
military operations and enhancing the interoperability of equipment 
used by the various components of joint forces.
    What is your assessment of the benefits of this authority?
    Answer. LAA, granted to the Secretary of Defense, has proven to be 
an exceptionally useful and flexible tool for JFCOM in support of other 
combatant commands, however, no funds were allocated to JFCOM to 
support LAA. The benefits of authorities to rapidly acquire solutions 
for the joint warfighter are obvious. But without proper resourcing we 
will continue to lag the problem.
    Based on warfighting shortfalls validated by combatant commanders, 
LAA has allowed JFCOM to field mature technologies or improved 
capability to the warfighters in the regional combatant commands more 
rapidly than the normal DOD acquisition process.
    Since 2004, JFCOM's implementation of LAA in support of the 
combatant commands has been used to fund and accelerate seven critical 
capabilities to the warfighter, in some cases years earlier than the 
standard acquisition process would have provided them.
    Question. Do you concur with the findings and recommendations of 
the Government Accountability Office in its April 2007 report which 
were somewhat critical of JFCOM's past and continued use of LAA?
    Answer. I think that what JFCOM has been asked to do with LAA is a 
challenging assignment particularly in light of the resource 
constraints that JFCOM must follow.
    That being stated, I do not agree with all the findings of the GAO 
report, but concur with the Department's response to the GAO. My 
interpretation of the GAO report is that GAO believes there is 
duplication of effort between JRAC and LAA. While there may be cases 
where the two processes may overlap, the intent is different and should 
an overlap exist, coordination between JFCOM and JS/JRAC eliminates any 
duplicative effort.
    I will, if confirmed, fully participate in a review of the LAA 
statute and JRAC processes to determine the role LAA should play in 
support to operational needs of the joint warfighter and inform 
Congress of the results of that review.
    Question. What internal changes, if any, would you recommend to 
improve the execution of the authority?
    Answer. If confirmed I would commit to studying this more 
thoroughly, but would offer that the statute could be modified to 
include use of operations and maintenance funding to sustain 
capabilities provided under the statute until either the recipient can 
POM for sustainment funding or the capability transitions to a DOD 
program of record. Another possibility could be to provide an 
acquisition contingency program element made up of RDT&E, operation and 
maintenance and OP dollars to the Under Secretary of Defense for 
Acquisition, Logistics, and Technology (USD(AT&L)) to fund JRAC and LAA 
approved projects.
    Question. Do you believe that an increase in acquisition staff size 
is necessary?
    Answer. I am not in a position to speak for USD(AT&L) on makeup and 
organization of the Defense Acquisition Work Force in DOD. JFCOM, 
however, has no acquisition staff and none is required at this time 
since all acquisition transactions under LAA are executed through 
Service/Agency Acquisition staffs using Service Acquisition 
authorities. If the LAA statue was made permanent, and JFCOM was 
empowered by USD(AT&L) to execute all aspects of acquisition authority, 
I would then revisit the need, size and organization of an acquisition 
staff to execute LAA responsibilities.
    Question. Do you believe this authority should be made permanent?
    Answer. It is my understanding that JFCOM has submitted a fiscal 
year 2008 legislative proposal to that effect, which is currently under 
consideration by the congressional defense committees. In light of the 
GAO report, I think a thorough evaluation of the authority should be 
reviewed and only after that review should LAA be made permanent. In 
the meantime, I don't think Congress should let the current LAA statute 
expire. I assure you that I will most certainly advocate the best and 
most expedient way to get joint capabilities in the hands of the 
warfighter.
    Question. What additional acquisition authorities, if any, does 
JFCOM require to rapidly address such joint warfighting challenges?
    Answer. None at this time.
    Question. Do you believe similar acquisition authority should be 
extended to other combatant commands, and, if so, which commands and 
why?
    Answer. Special Operations Command already has acquisition 
authority to meet specific needs of their special operations mission. 
It is my belief that LAA was given to JFCOM to meet the unique 
interoperability and C2 missions assigned to the command under the UCP 
and reinforced recently by the Joint C2 CPM mandate of the Deputy 
Secretary of Defense. For those missions, JFCOM should be the single 
entity determining the joint solutions to interoperability and C2 
problems faced by all the combatant commanders.
    Question. Will you recommend that the Department directly fund 
JFCOM to support the authority--which has not occurred to date?
    Answer. I would like to reserve judgment on whether to directly 
fund JFCOM to support the authority pending my own internal review of 
JFCOM's LAA. Although an acquisition contingency fund (program element) 
made up of research, development, technology, and evaluation (RDT&E), 
operations and maintenance and OP subheads available to USD(AT&L) to 
fund LAA approved projects might be an attractive interim course of 
action.
    Question. What role should oversight officials from the Office of 
the USD(AT&L) play in the utilization of JFCOM's acquisition authority?
    Answer. While approval of LAA projects should remain the decision 
of Commander, JFCOM, USD(AT&L) should have a responsibility to arrange 
funding for the LAA projects and continue to perform an oversight role 
in ensuring JFCOM doesn't violate acquisition regulations in the 
execution of the LAA mission.

                DEFENSE SCIENCE AND TECHNOLOGY PROGRAMS

    Question. The Department's Science and Technology (S&T) programs 
are designed to support defense transformation goals and objectives. 
These programs are intended to ensure that warfighters--now and in the 
future--have superior and affordable technology to support their 
missions and to give them revolutionary war-winning capabilities.
    Do you believe there is an adequate investment in innovative 
defense science to develop the capabilities the Department will need in 
the future?
    Answer. It is my understanding that JFCOM has developed an 
excellent working relationship with DARPA over time; if confirmed, I 
intend to examine these issues more closely.
    Question. Do you believe the Department's investment strategy for 
S&T programs is correctly balanced between near-term and long-term 
needs?
    Answer. This is an area where I plan to review and analyze more 
closely should I be confirmed.
    Question. What is the role of JFCOM's modeling and simulation 
program in development on new warfighting capabilities for DOD?
    Answer. While JFCOM modeling and simulation (M&S) has focused on 
developing new warfighting capabilities, more importantly it has 
facilitated a more comprehensive understanding of the national and 
global security environment of the 21st century. It replicates the 
complexity and terrain of the security environment without placing 
soldiers, sailors, airmen, and marines in harms way. In addition, JFCOM 
M&S enables complete integration of the other key players in national 
security, such as multinational and interagency partners, with little 
attendant risk (politically and operationally). Distributed operations 
allow participants greater access to joint venues through the network, 
and from their home stations, thus driving down costs and encouraging 
participation.
    The two major elements of JFCOM's M&S enterprise are 
experimentation and training. M&S enables both in ways not even 
considered possible less than 10 years ago.
    For experimentation, the case of urban resolve is instructive. The 
experiment modeled many of the situations we are facing in the urban 
environment today, and modeled situations we fear may materialize in 
the not too distant future. In this simulation-supported experiment, 
JFCOM was able to take dozens of looks at proposed solutions, and when 
something failed, reset and look again and again. Analysis took only 
weeks, and successfully capabilities transitioned to fielding programs 
within a few months.
    For training, JFCOM manages the JNTC that integrates live forces 
(the principal training audience) with a virtual input from individual/
team trainees operating simulators with constructive inputs from 
computerized models. Live-virtual-constructive inputs are all combined 
into a single operating picture that all the participants share.
    Finally, M&S not only enables development of new warfighting 
capabilities, but constitutes a new, emerging warfighting capability in 
itself. Some of the M&S transformational capabilities that have already 
been fielded are operational applications of models developed for other 
reasons that are now being applied in planning, mission rehearsal, 
mission execution, and assessment in direct support of operators.

                         TECHNOLOGY TRANSITION

    Question. The Department's efforts to quickly transition 
technologies to the warfighter have yielded important results in the 
last few years. Challenges remain to institutionalizing the transition 
of new technologies into existing programs of record and major weapons 
systems and platforms.
    What are your views on the success of JFCOM programs in spiraling 
emerging technologies into use to confront evolving threats and to meet 
warfighter needs?
    Answer. Service and defense agency efforts to provide new and 
emerging technologies to the warfighters have continued to improve 
during execution of the Global War on Terror. JFCOM has played a role 
in that effort with LAA. While the efforts to date are praiseworthy, 
challenges remain in the execution of all rapid acquisition efforts and 
transition of the provided capabilities to the units who will render 
life cycle support to those capabilities. In all the efforts to get new 
technology into the hands of the warfighter, those providing the 
capability must not forget, in their earnestness, that training, 
logistics and life cycle support planning/execution are the true 
determination of how well any new technology will improve, over the 
long haul, the warfighter's ability to effectively employ and sustain 
the capabilities these new technologies bring to our forces.
    Question. Do you believe there are improvements that could be made 
to transition critical technologies more quickly to warfighters?
    Answer. This is another one of those questions in which I must 
immerse myself if I am confirmed, because being outside Joint Forces 
Command until now hasn't given me the familiarity I need to answer. 
Both the JROC and JFCOM LAA ensure that provided capabilities have a 
plan to sustain the provided capabilities brought by new technology to 
the battle space.

         JOINT COMMAND AND CONTROL CAPABILITY PORTFOLIO MANAGER

    Question. DOD recently assigned JFCOM the acquisition oversight 
role of Joint Command and Control (JC2) Capability Portfolio Manager.
    As you understand it, what does this responsibility entail and do 
you believe it is consistent with the overall JFCOM mission and funding 
levels?
    Answer. As I understand it, the Deputy Secretary of Defense tasked 
JFCOM to manage a group of like capabilities--in this case, Joint 
Command and Control--across the enterprise to improve interoperability, 
minimize capability redundancies and gaps, and maximize capability 
effectiveness. He also asked that JFCOM integrate requirements/
capabilities, acquisition and programmatics--across materiel and non-
materiel (doctrine, organization, training, materiel, leadership and 
education, personnel, and facilities (DOTMLPF)) considerations. As 
such, it fits exactly within the overall JFCOM mission space. However, 
there maybe a need to selectively expand this capability in the future.
    Question. What do you see as the major challenges towards the 
development and deployment of joint, interoperable command, control, 
and communications systems?
    Answer. Portfolio management is a truly transformational effort by 
the Department to apply common business rules to our warfighting 
enterprise. In essence, we say we fight in a joint, combined, and 
interagency environment that requires interoperable, scalable, net-
enabled command and control and associated systems, but we design and 
procure these systems at the Service level, often independently from 
similar efforts in the other Services. That is the niche JFCOM fills. 
The command provides the joint, multinational, and interagency context 
and understanding that is by definition missing from the Services and 
it uses that knowledge to fill the critical joint gaps that exist in 
the individual Service C2 and associated DOTMLPF efforts.

                   END STRENGTH OF ACTIVE-DUTY FORCES

    Question. What level of active-duty personnel (by Service) do you 
believe is required for current and anticipated missions?
    Answer. This is not strictly a numbers game--the key is to find the 
right amount of capability and have an instituted process for 
effectively and efficiently employing it. Increasing the end strength 
of the Army and Marine Corps can add capability, but it is just one 
tool we can use to meet the demands of missions now and in the future.
    Question. How would you assess the progress made to date by the 
Services in reducing the numbers of military personnel performing 
support functions through hiring of contractors or substitution of 
civilian employees?
    Answer. The Services have made significant inroads into shifting 
duties from military personnel to contractors in the areas of combat 
operations and moving support work to government civilians in non-
hostile areas around the globe. There are over 100,000 contractor 
personnel working in Iraq right now which have enabled the military to 
stay focused on the mission. Outside the conflict area, the government 
civilian community provides a wealth of manpower to fill support 
positions. The conversion of military to civilian billets is making 
good progress, however it is imperative that we not lose sight of the 
funds required to sustain this effort. We must also fund the continued 
development of our civilian workforce. There is a challenge with 
government civilians working in a combat zone and their pay incentives. 
These individuals do not receive the tax and pay benefits currently 
afforded uniformed military personnel. Given that we ask government 
civilians to volunteer for work in a combat zone, I would encourage 
Congress to examine government civilian compensation in a combat zone 
and enact legislation in support of deployed government civilians.

                     RELIANCE ON RESERVE COMPONENT

    Question. The men and women of the Reserve component have performed 
superbly in meeting the diverse challenges of the global war on 
terrorism and have been greatly relied upon in Operations Noble Eagle, 
Enduring Freedom, and Iraqi Freedom. The roles and missions that should 
be assigned to the Reserve Forces is a matter of ongoing study.
    What missions do you consider appropriate for permanent assignment 
to the Reserve component?
    Answer. Our Reserve Forces have demonstrated that with proper 
training and equipping they are capable of performing alongside their 
active counterparts in support of virtually any mission. I would not 
categorically constrain any mission to either the active or the Reserve 
components. I believe the National Guard should remain a dual-missioned 
force available for both State and Federal Support missions.
    Question. What should the focus of JFCOM be in ensuring that 
Reserve Forces are trained and ready to participate effectively in 
joint operations?
    Answer. My experience is our Reserve Forces operate equally with 
our Active-Duty Forces as an integral part of joint operations. The 
focus for Reserve Forces should be to prepare them to seamlessly 
participate effectively in joint operations alongside their Active duty 
counterparts, and coalition partners regardless of the mission. Joint 
Forces Command, along with the Services, should provide training for 
Reserve Forces in the same manner that they train Active-Duty Forces.
    Question. The Department's Training Transformation Implementation 
Plan of June 10, 2003, provides that the Department's training program 
will benefit both the Active Duty and Reserve components.
    If confirmed, how would you ensure that the Reserve and the 
National Guard benefit from the JNTC, a key component of the Training 
Transformation Implementation Plan?
    Answer. I will stay actively engaged with the leaders of the 
Reserve components and JFCOM's Component Commander to ensure all joint 
forces have an opportunity to benefit from the JNTC, appropriate to 
their mission. Together, we will continue to develop collaborative 
understanding of the joint enhancements required at key Reserve and 
National Guard training programs.

                    STABILITY AND SUPPORT OPERATIONS

    Question. Operations in Iraq and Afghanistan have underscored the 
importance of planning and training for post-conflict stability and 
support operations. Increased emphasis has been placed on stability and 
support operations in DOD planning and guidance in order to achieve the 
goal of full integration across all DOD activities.
    What is your assessment of the Department's current emphasis on 
planning for post-conflict scenarios?
    Answer. The Department has made great progress in the area of 
Military Support to Stabilization, Security, Transition and 
Reconstruction Operations (SSTRO) and has put emphasis on military 
planning for post-conflict scenarios. The Department's efforts have 
helped to codify the best practices and procedures that the recent 
experiences have taught us. The Department has given a priority to 
military support to post-conflict planning and the conduct of stability 
and support operations comparable to that we have historically placed 
on preparations for major combat operations.
    However, post-conflict operations require a whole of government 
effort. Typically during a crisis, those in military and civil service 
have come together with the best intentions and eventually respond in a 
unified manner. The lack of planning can make the initial efforts 
awkward, uncoordinated, and inefficient. The Department is an active 
participant in the executive branch's efforts to improve the 
integration of U.S. Government efforts.
    Question. How can the new directives on post-conflict planning and 
the conduct of stability and support operations be better implemented?
    Answer. One of the most important ways to better implement the 
directives is to institutionalize and expand the Department's efforts 
towards integrated whole of government planning. If confirmed as 
Commander, JFCOM, I will keep the emphasis on matters for which I am 
personally accountable such as:

        <bullet> Capturing the joint lessons learned and improving our 
        ability to share them with our interagency partners
        <bullet> Developing joint concepts in collaboration with 
        interagency partners
        <bullet> Expanding joint exercises to include interagency 
        partners in the event development and execution
        <bullet> Expanding joint training efforts to include 
        interagency partners access and participation in exercises, 
        courseware development and online distributed training
        <bullet> Integrating Interagency partners into Joint Command 
        and Control solutions.

    Question. What lessons do you believe the Department has learned 
from the experience of planning and training for post-conflict 
operations in Iraq and Afghanistan?
    Answer. Most lessons learned from our experiences of planning and 
training for post-conflict operations is related to the importance of 
integrating our interagency and multinational partners. The integration 
issues emphasize the need to invest in:

        <bullet> Defining the lead and supporting roles and 
        responsibilities in the planning process
        <bullet> Developing collaborative decisionmaking processes
        <bullet> Developing compatible information systems to include 
        interface controls, data sharing, and disclosure processes
        <bullet> Expanding joint exercises to include interagency and 
        multinational partners in the exercise scenario and objective 
        development and execution.

                    JOINT PERSONNEL RECOVERY AGENCY

    Question. In September 2004, the JFCOM Chief of Staff (MG James 
Soligan) issued a memorandum entitled, ``Joint Personnel Recovery 
Agency Mission Guidance,'' stating, in part, that ``the use of 
resistance to interrogation knowledge for offensive purposes lies 
outside the roles and responsibilities of Joint Personnel Recovery 
Agency (JPRA),'' and that ``JPRA personnel will not conduct any 
activities or make any recommendations on offensive interrogation 
techniques or activities without specific approval from the JFCOM 
Commander, Deputy Commander, or the Chief of Staff.'' The memorandum 
further noted that, ``Deviations from the JPRA chartered mission of 
this nature are policy decisions that will be forwarded to OSD for 
action.''
    If confirmed as Commander, JFCOM, would it be your intent that JPRA 
continue to operate within these policy guidelines?
    Answer. Yes, I will ensure that JPRA continues to operate in these 
guidelines.

                          NATO TRANSFORMATION

    Question. In their Summit Declaration issued at Riga, Latvia, in 
November 2006, the NATO Heads of State emphasized ``the importance of 
continuing transformation of NATO's capabilities and relationships.'' 
They also endorsed the Comprehensive Political Guidance, which provides 
a framework and political direction for NATO's transformation over the 
next 10 to 15 years.
    What do you believe is the role of the SACT in bringing about the 
transformational change to NATO forces?
    Answer. SACT is the commander responsible to the military committee 
for overall recommendations on transformation. In this capacity, he 
leads the transformation of NATO military structures, and capabilities 
and doctrines in order to improve the military effectiveness and 
interoperability of the Alliance. Of the two Strategic Commanders, SACT 
leads the defense planning process and in coordination with SACEUR, 
delivers a comprehensive and capabilities based Defense Requirements 
Review that identifies the Minimum Military Requirements in order to 
fulfill the Level of Ambition that NATO's political leaders have set.
    With respect to the transformational change to NATO forces, SACT's 
role is to:

        <bullet> Transform NATO's military capabilities through a 
        rigorous process supported by concept development, 
        experimentation and a comprehensive training program.
        <bullet> Work with SACEUR to continue to describe how NATO 
        should conduct operations in the future and identify the 
        associated required military capabilities.
        <bullet> Respond to emerging operational requirements stemming 
        from current operations thereby assisting SACEUR.
        <bullet> Assist nations through the review of their individual 
        national defense plans and reform efforts.

    Question. If confirmed, what would be your priorities for meeting 
alliance capability requirements?
    Answer. The Comprehensive Political Guidance provides a framework 
and political direction for NATO's continuing transformation, and helps 
ACT focus its work in support of improving NATO's ability to conduct 
operations and missions, and developing usable capabilities. If 
confirmed, my priorities for meeting Alliance capability requirements 
would focus on aiding the efforts to develop agile, expeditionary, 
interoperable and sustainable forces that can deploy quickly and 
operate in an unpredictable, asymmetric environment; support the 
improvement of deployability and sustainability of NATO forces, and 
information superiority. Furthermore, I will focus on specific 
capabilities in the field of training and education, which are also 
essential as ACT moves forward with NATO's transformation endeavor.
    Question. What do you foresee as the major challenges to NATO 
transformation?
    Answer. In current and future NATO missions, NATO headquarters and 
tactical operations are increasingly joint and will be a common 
denominator which will require need for interoperability and common 
standards at the lowest tactical levels. Increasingly, these NATO 
operations are alongside, and often include non-NATO nations and non-
military actors. One of the main challenges will be to ensure that NATO 
possesses clear standards to ensure equipment interoperability and the 
right processes, capabilities and the validation and qualification 
tools to deliver the requisite training and education to ensure 
interoperability of tactics, techniques and procedures.
    Other major challenges that I foresee to NATO transformation are:

        <bullet> The delivery of timely transformational products to 
        Allied Command Operations and the Nations that improve and 
        transform the military forces.
        <bullet> Advancing a clear and common understanding throughout 
        the Alliance of military transformation and ACT's role in the 
        process, and provide the appropriate resources to meet the 
        associated requirements.
        <bullet> Capturing the right lessons learned from NATO 
        operations today, and implementing appropriate corrective 
        actions so that we can provide increasingly effective 
        capabilities for tomorrow's operations.

    Question. It has been reported that NATO is reassessing the size 
and scope of the NRF, a central element of NATO's transformation 
efforts.
    What is your assessment of the current capabilities of the NRF?
    Answer. The NRF is based on a sound concept to deliver capable 
expeditionary forces and to assist in transforming our military 
capabilities to meet the security needs of the 21st century. The NRF 
achieved Full Operational Capability in November 2006. However, it has 
been reported lately that Nations are, at this stage, not in a position 
to meet the full demands of the force and hence cannot provide all 
required capabilities. The primary reason seems to be the current high 
operational tempo, including operations in Afghanistan and the Balkans 
that directly competes for forces and capabilities that might otherwise 
be available for the NRF. This situation however impairs the ability of 
the NRF to conduct the full range of its missions. The NRF as a vehicle 
for NATO transformation remains a solid premise and one that I shall 
support.
    Question. What role do you believe the SACT can play in improving 
the capabilities of the NRF?
    Answer. The NRF has been identified as a primary vehicle for 
transformation; besides being a credible force for expeditionary 
operations across the full spectrum of military operations. As such, it 
becomes the primary platform for improving and broadly incorporating 
enhanced capabilities such as Counter IED, Unmanned Aerial Vehicles, 
and Fratricide Prevention equipment and procedures into Alliance forces 
so they are available to the warfighter. The rotation of NRF forces 
facilitates modernization and transformation of military forces across 
the alliance, and then NRF exercises incorporate, refine, and ensure 
joint and multinational interoperability to include doctrinal and 
structural changes.
    Therefore, I believe that the vital role SACT plays, in cooperation 
and coordination with SACEUR, in improving the capabilities for the NRF 
follows:

        <bullet> Ensuring that the NRF remains a key driver for 
        enhancing interoperability within the Alliance, particularly 
        through joint and combined education and training.
        <bullet> Promoting the NRF as the fundamental vehicle for the 
        incremental implementation and dissemination of new concepts 
        and capabilities and the one that possess the ability to 
        rapidly incorporate capability enhancements and implement them 
        into national forces that are committed to expeditionary joint 
        and combined operations.

    Question. ACT is supported in its transformational efforts by a 
number of multinational COEs. Currently there are seven NATO-accredited 
COEs.
    What do you believe is the proper role for COEs in supporting ACT's 
transformation mission?
    Answer. While not part of NATO's command/manning structure, ACT can 
leverage some of the COE's expertise and products in support of the 
transformation mission. By looking to ACT for recommendations on annual 
work plans, the COEs can be assured of a focus of effort complimentary 
to ACT and of benefit to the Alliance transformation efforts. 
Specifically, there should be a good synergy of effort with the 
Netherlands Command and Control, U.S. Combined Joint Operations from 
the Sea, German-Netherlands Civil Military Cooperation, and Czech Joint 
Chemical Biological Radiological Nuclear Explosive (CBRNE) COEs.

            JFCOM-ALLIED COMMAND TRANSFORMATION RELATIONSHIP

    Question. What do you believe is the proper relationship between 
JFCOM and ACT?
    Answer. There is a great opportunity for synergy, collaboration and 
support between the two commands--and it is very much a two-way street 
that benefits both NATO and the U.S. The work being accomplished in the 
areas of Joint Experimentation and Joint Training directly complement 
similar efforts being undertaken by ACT. The expansion of the NATO/ISAF 
mission in Afghanistan has increased the frequency of cooperation 
between the two commands. Lesson learned in Afghanistan by NATO can be 
applicable for U.S forces in Iraq, the Horn of Africa, and as we stand 
up AFRICOM. The global war on terror and our enemy mandates that we 
continue to build and support the symbiotic relationship between the 
two commands. As NATO's North American Strategic Command I believe the 
vision to place it in Norfolk alongside JFCOM was exactly correct. The 
co-location of NATO's Transformation Command with JFCOM has already 
proven to be an invaluable resource to the militaries of all NATO 
countries, including the United States. I will push hard to ensure we 
are working to maximize this relationship especially in key areas of 
training, doctrine development, C2, intelligence fusion and 
dissemination, new capabilities and experimentation, and lessons 
learned and best practices. We will improve this effort as this 
relationship matures in the crucible of support to the warfighter.
  responses to wmd threats and natural disasters in the united states
    Question. Deficiencies in the responses of Federal, State, and 
local agencies to Hurricane Katrina have generated debate about the 
appropriate role for military forces in responding to national crises.
    What do you see as the appropriate role for Commander, JFCOM; 
Commander, NORTHCOM; and the Governors and Adjutant Generals of each 
State and territory in responding to weapons of mass destruction (WMD) 
incidents within the United States?
    Answer. As Commander, JFCOM, has no AOR, JFCOM's role is that of 
Joint Force Provider to Commander, NORTHCOM, or any other designated 
Supported Commander, following a WMD incident. JFCOM is tasked to 
provide forces requested by the Supported Commander and validated by 
the Joint Staff (SECDEF) in a timely manner. The Commander, JFCOM, does 
not generally provide forces to Governors or TAGs who have purview over 
their own State National Guard forces, however if those forces are 
Federalized by the President, they could be provided to the Supported 
Commander by the Commander, JFCOM. It is generally assumed that in case 
of a WMD incident the President would choose to use forces under title 
10, but there is no guarantee of that eventuality. Should the response 
be limited to title 32 forces, JFCOM would have a limited role in the 
response.
    Question. What is the appropriate role and response for Active-Duty 
Military Forces in supporting civil authorities in responding to 
natural and manmade disasters not involving WMD threats within the 
United States?
    Answer. Active-Duty Military Forces are always ready and willing to 
give their help in recovering from disasters at home and have 
demonstrated that repeatedly in the past. Most recent examples are the 
Hurricane Katrina aftermath and the bridge collapse in Minnesota. DOD 
has always demonstrated an appropriately aggressive posture toward 
assistance, in support of a Lead Federal Agency (LFA) following a 
disaster, often deploying forces within hours of stated need.
    Question. Hurricane Katrina has demonstrated the importance of 
joint and interagency training in preparation for support disaster 
operations.
    In your view, how could JFCOM influence joint and interagency 
training to enable better coordination and response for natural 
disaster operations?
    Answer. There are probably two high-impact approaches JFCOM can use 
to enable coordination and response during natural disaster operations: 
experimentation and training. The first discovers best practices, the 
second trains the entire interagency and non-governmental partners in 
those best practices.
    The Noble Resolve series of experiments that JFCOM initiated this 
year brought together Federal, State, and local governments, commercial 
organizations, Department of Homeland Security and its subordinate 
agencies, all the Services, NORTHCOM, U.S. Transportation Command 
(TRANSCOM), and subordinate operating forces, the National Guard 
Bureau, and the National Guards of Virginia, Oregon, Washington State, 
and Texas. These partnerships, and the progress they made in Noble 
Resolve on best practices and organizational structures for both 
natural and man-made disaster response, were very impressive and bode 
well for the future. This series needs to continue.
    Multinational Experiment 5 does the same for international 
partners, and is informing EUCOM and AFRICOM on ways to integrate a 
whole of government and multinational approach to humanitarian 
assistance, disaster relief, and preventing conflict in Africa.
    Joint exercises spread the best practices identified in lessons 
learned and experimentation, and practically integrate Joint Forces and 
Interagency partners. Of the 13 priority exercises conducted in fiscal 
year 2007, 3 focused primarily on Humanitarian Assistance/Disaster 
Relief (HA/DR) and Consequence Management or Foreign Consequence 
Management.

               WEAPONS OF MASS DESTRUCTION RESPONSE UNITS

    Question. What role do you believe JFCOM should play in the 
training, assessment of readiness, and employment of units with WMD 
response missions, such as the WMD-Civil Support Teams and the CBRNE 
Consequence Management Response Force (CCMRF)?
    Answer. JFCOM will assume expanded responsibilities in training and 
assessment for the National Guard centric CCMRF construct scheduled to 
initial operational capability in fiscal year 2009. JFCOM is tasked to 
ensure that Service training plans are in accordance with NORTHCOM 
joint mission-essential tasks (JMETs) for CCMRF units, which is a 
relatively new mission for JFCOM. JFCOM will also assess readiness 
against those JMETs and report that assessment to the SECDEF monthly 
and the Senior Readiness Oversight Council quarterly. JFCOM will not 
employ those units, but will provide them in a timely manner to a 
supported commander following SECDEF validation of a requirement.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, JFCOM, and 
SACT?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

                Questions Submitted by Senator Jack Reed

                  INDUSTRY ROLE IN NATO TRANSFORMATION

    1. Senator Reed. General Mattis, the Department of Defense (DOD) 
has developed a number of methods by which industry helps shape and 
partner in efforts to transform military technology. Joint Forces 
Command (JFCOM) participates in these types of outreach and partnership 
efforts in a number of venues. What role do you feel U.S. and European 
industry can play in shaping and accelerating the North Atlantic Treaty 
Organization (NATO) transformation?
    General Mattis. The U.S. Armed Forces have benefited greatly by 
close collaboration between the DOD and the defense industry in 
development and production of systems that have greater joint utility, 
but we still have much that needs to be done. Cooperative Research and 
Development Agreements have benefited both DOD and industry when if 
comes to developing new capabilities. This construct might also be used 
by NATO to advance transformational concepts and ideas. We're hampered 
by too much proprietary development and production, and a lack of 
common and interoperable standards across the board. In this regard, 
properly constituted and safeguarded ``reading rooms,'' open to 
properly cleared persons, may permit government and industry to share 
advances and facilitate making open architectures for our new systems.
    Certainly partnerships with industry, academia, and business are 
vital to modernizing NATO's armed forces. JFCOM currently partners with 
Allied Command Transformation (ACT) in a number of areas. As Commander, 
JFCOM, and Supreme Allied Commander Transformation, it is my intent to 
strengthen and institutionalize these bonds whenever possible and 
wherever they make sense. Additionally, ACT already has a close working 
relationship with NATO's Conference of National Armaments Directors 
(CNAD), the NATO Industrial Advisory Group (NIAG), and the NATO 
Research and Technology Board. ACT also has a close working 
relationship with the NATO Consultation, Command and Control Agency 
(NC3A) and the NATO Standardization Agency which facilitates 
transformation. Recently, NATO established the Defense Leaders Forum 
(DLF) which brings together the very best industry, academic, and 
business leaders to discuss and identify solutions for a variety of 
challenging issues. ACT is actively involved in the DLF and I'm eager 
to find ways to expand this participation in the future to accelerate 
transformation. Cooperation and collaboration among these organizations 
is absolutely essential in equipping NATO forces with the very best 
equipment available. Lastly, I look forward to learning more about 
these organizations and how they contribute to NATO transformation 
efforts.

    2. Senator Reed. General Mattis, how would you seek to establish 
and improve ties between NATO's transformation efforts and defense 
industry?
    General Mattis. In an Alliance of 26 nations, all with their own 
vital national interests at stake and voting citizens who depend on 
jobs in their national defense industries, improving the flow of 
information across the Alliance and between nations and industries is a 
challenge. Clearly, there needs to be transparency in NATO's dealings 
with industry and a refined focus on developing processes to share 
information with industries which are acceptable to all nations. This 
will provide an overarching framework for the Nations of NATO to 
cooperate with industry to accelerate transformation of our systems and 
processes.
    This means that cooperation with industry should embrace the full 
spectrum of capability development to include:

        <bullet> The early, exploratory stage of research and 
        development where research is facilitated by a free exchange of 
        ideas.
        <bullet> At the informal level by promoting and leading 
        informal networking to benefit from each other's best 
        practices, trends, and helping industry understand at different 
        levels the Alliance's perspective of the future.
        <bullet> Down the road by recognizing that despite national 
        interests, pooling of efforts can be beneficial in specific 
        areas.
        <bullet> Promote closer ties with the European Defense Agency.

                         BATTLEFIELD CASUALTIES

    3. Senator Reed. General Mattis, in your future role at NATO, you 
must address the social, intellectual, and training dimensions of 
transformation. Many believe that a major driver in European defense 
policy discussions centers on casualty expectations and ways to reduce 
casualties, including technology-based and doctrinal approaches. What 
roles would you expect the concerns for casualties, both civil and 
military, to drive the willingness of NATO to commit forces and how 
will transformation affect such political processes and the resulting 
decisions?
    General Mattis. Reducing casualties may be a major concern for any 
country, but especially those with a democratic form of government. 
Since NATO is an Alliance of 26 nations, one must contend with 26 
separate political systems. Public support throughout the Alliance 
nations is undermined by fragile political consensus over intervention 
or by the impact of protracted involvement. This is complicated if 
protection measures appear to be insufficient for the forces, if 
military casualties are the result of fratricide incidents resulting 
from a clear lack of interoperability, or if opposing forces are 
allowed to win the strategic communication battle. There is no doubt 
casualties have impacted national politics and policies for some of 
NATO Allies, and of course national caveats restricting the forces of 
some nations from fully participating in combat operations have 
hindered NATO efforts in fighting the enemy.
    Reducing the number of casualties on the battlefield is a top 
priority. My goal as Commander, ACT, will be to leverage existing and 
future technologies to reduce casualties on the battlefield wherever 
possible regardless of whether or not it impacts a nation's decision to 
send military forces into combat. Transformation will affect the 
process by enhancing and adapting force protection to today's 
environment, by reducing fratricide risks through interoperability 
improvements, by teaching NATO forces to adjust the use of force to the 
environment they are operating in, and by supporting information 
operations efforts.
    But the primary method of reducing casualties, whether from enemy 
fires or fratricide, will seldom be technology based. Sound training of 
leadership, smooth information-sharing processes in headquarters 
staffed by officers who have mastered their warfighting skills, 
cohesive formations that have trained together and integrated their 
activities prior to entering the combat zone, and a shared appreciation 
of the enemy situation (from the strategic to the tactical/small unit 
level) will often be most fundamental to casualty reduction. We can 
embolden our allies if we develop a shared appreciation for the threat 
and ensure that we are doing everything possible, with technology and 
sound military training, to reduce casualties to absolute minimums.

                          NATO TRANSFORMATION

    4. Senator Reed. General Mattis, what institutions are in place 
within NATO to accelerate technological transformation?
    General Mattis. I think clearly the establishment of ACT as one of 
the only two strategic commands in NATO was a monumental step. Other 
institutions are:

        <bullet> NIAG is a subordinate organization of the CNAD and is 
        a key link between the military, nations, and industry.
        <bullet> CNAD and its five subordinate organizations
        <bullet> NATO Research and Technology Organization
        <bullet> NATO Standardization Organization and Standardization 
        Committee or Standardization Agency

    I look forward to working with the military committee and the 
Conference of National Armament Directors in official venues such as 
the DLF and ACT Industry Day conferences.

    5. Senator Reed. General Mattis, what are their authorities and 
what are their responsibilities?
    General Mattis. I cannot adequately answer this question at the 
present time since I have not had an opportunity to fully review the 
roles and missions of the aforementioned organizations. A full 
assessment of authorities and responsibilities that are present or that 
may be needed is on my agenda after I have taken command of ACT, and I 
welcome the opportunity to discuss this with Senator Reed once I'm more 
conversant on these complex issues.

    6. Senator Reed. General Mattis, there is a great difficulty in 
doing away with NATO programs that no longer fit within the 
``transformed'' strategic NATO capabilities. What ideas would you 
suggest in promoting ways to enable NATO to end investments in 
capabilities that no longer fit within the structure of a transformed 
organization?
    General Mattis. I cannot adequately answer this question at the 
present time since I have not had an opportunity to review NATO's List 
of Required Capabilities, the Long-Term Capability Requirements list or 
the Prioritized List of Capabilities Shortfalls. Nor have I been 
briefed on the results of the Defense Readiness Review process. 
However, one of my first steps as Commander, ACT, will be to conduct a 
review of these documents in coordination and consultation with Allied 
Command Operations and the Defense Review Committee. Programs that do 
not satisfy NATO capability requirements outlined by the Defense Review 
Committee or that are obsolete should be considered for termination. 
Since money is a finite resource it is important that NATO use its 
available resources as efficiently and wisely as possible. It is my 
responsibility to be a conscientious steward of NATO Euros and to 
ensure NATO is getting the best return on its investment by producing 
the most effective capabilities possible.
    As a preface to how I will approach this process of adapting/
modernizing our forces, I will ensure that we rigorously define the 
military problem that needs to be solved--what desired accomplishment 
is not currently being achieved. By working with our NATO allies to 
sufficiently define the problem, we will better work together to divest 
irrelevant capabilities and create capabilities necessary for today and 
tomorrow's security. Without first adequately defining the problems we 
face, no relevant modernization of our capabilities can be achieved.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                        NATIONAL GUARD READINESS

    7. Senator Collins. General Mattis, I am concerned about the level 
of readiness of the National Guard for domestic and civil support 
missions. This year, the Chief of the National Guard Bureau, General H. 
Steven Blum testified before the Commission on the National Guard and 
Reserves that ``88 percent of the forces that are back here in the 
United States after having been deployed are very poorly equipped today 
in the Army National Guard.'' A Government Accountability Office report 
that was also released this past year found that most State National 
Guard leaders have expressed concerns about having sufficient equipment 
to respond effectively to a large-scale disaster, whether natural or 
manmade. In addition, a March 2007 report by the congressionally 
chartered independent Commission on the National Guard and Reserves has 
found that many Army and Air National Guard units stationed in the 
United States are rated ``not ready.'' As the Joint Force Provider, 
what is your assessment today of the Guard's current level of readiness 
to provide adequate support to civil authorities in the event of 
another catastrophic event like Hurricane Katrina?
    General Mattis. I appreciate Lieutenant General Blum's testimony 
and candor regarding the readiness of the National Guard. The high 
tempo of operations and demands of global war on terrorism have 
strained the Guard just as it has strained the Active component forces. 
Material readiness remains a considerable challenge for all of our 
forces; Active, Guard, and Reserve. In my role, as Joint Force Provider 
and Joint Force Trainer, I look forward to working with Lieutenant 
General Blum, the National Guard Bureau, and the Joint Staff in 
identifying and finding ways to improve joint training and readiness 
for National Guard units so they are capable of performing a wide range 
of missions.
    Providing adequate resources to the National Guard is one way of 
ensuring they are properly equipped to perform their core missions. 
Requested supplemental appropriations are specifically intended to 
address material shortcomings, especially in Active Army and Army 
National Guard units. During the next fiscal year, particular attention 
is being paid to those National Guard units assigned to the Chemical, 
Biological, Radiological, Nuclear, and High Yield Explosive Consequence 
Management Forces (CCMRF). Those units assigned to CCMRF missions will 
have priority with regard to equipment fielding. The increased 
equipping priority recognizes the importance of providing timely 
support to civil authorities following any disaster, whether natural or 
manmade. This increased readiness will assist Governors in their 
domestic efforts when they employ their National Guard as well.
    As noted in the question, the challenges with equipping National 
Guard Forces are considerable; although, even when constrained by 
equipment shortfalls is still capable of responding to domestic 
disasters in support of State and Federal directives. Our job as senior 
leaders, both military and civilian, is to ensure that we provide the 
resources that enable our National Guardsmen to perform their duty 
effectively today and tomorrow when the call comes.
                                 ______
                                 
    [The nomination reference of Lt. Gen. James N. Mattis, 
USMC, follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                September 12, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment to the grade of general 
in the United States Marine Corps while assigned to a position of 
importance and responsibility under title 10, U.S.C., section 601:

                             To be General

    Lt. Gen. James N. Mattis, USMC, 0000.
                                 ______
                                 
    [The biographical sketch of Lt. Gen. James N. Mattis, USMC, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
                Resume of Lt. Gen. James N. Mattis, USMC
Assigned: 14 Aug. 2006.

Projected Rotation: 8 Nov. 2007.

Education/Oualifications:
    Central Washington State University, BS, 1971
    National War College, MS, 1994
    The Basic School, 1972
    Amphibious Warfare School, 1978
    Marine Corps Command and Staff College, 1985
    National War College, 1994
    Capstone, 2001
    JFLCC, 2004
    Industrial College of the Armed Forces, 2006
    Pinnacle, 2006
    Infantry Officer
    Joint Specialty Officer

Date of rank: 1 Jan. 2005.

Date of birth: 8 Sep. 1950.

Date commissioned: 9 Feb. 1972.

MRD: 1 July 10.

Languages: None.

Commands:
    Commanding General, Marine Corps Combat Development Command (Lt. 
Gen.: Oct. 2004-Aug. 2006).
    Commanding General, 1st Marine Division (Maj. Gen.: Aug. 2002-Aug. 
2004).
    Deputy Commanding General, I Marine Expeditionary Force; and 
Commanding General, 1st Marine Expeditionary Brigade (BGen: July 2001-
July 2002).
    Commanding Officer, 7th Marines, 1st Marine Division (Col.: June 
1994-June 1996).
    Commanding Officer, 1st Battalion, 7th Marines (Lt.Col.: Feb. 1990-
May 1992).
    Commanding Officer, Recruiting Station Portland, OR (Maj: June 
1985-Aug. 1988)

Joint assignments:
    Senior Military Assistant to the Deputy Secretary of Defense (BGen: 
Mar. 2000-June 2001).
    Executive Secretary, Office of the Secretary of Defense (Col: June 
1996-June 1998).

Service staff assignments:
    Director, Manpower Plans and Policies Division (BGen: Aug. 1998-
Feb. 2000).
    Head, Enlisted Assignments, Personnel Management Division (LtCol: 
Apr. 1992-Aug. 1993).
    Executive Officer, 7th Marines, 1st Marine Division (LtCol: Aug. 
1989-Feb. 1990).
    Operations Officer, 7th Marines, 1st Marine Division (LtCol: June 
1989-July 1989).
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Lt. Gen. James 
N. Mattis, USMC, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    James N. Mattis.

    2. Position to which nominated:
    Commander, United States Joint Forces Command and Supreme Allied 
Commander, Transformation.

    3. Date of nomination:
    September 1, 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 8, 1950; Pullman, WA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Single.

    7. Names and ages of children:
    None.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member of U.S. Naval Institute.
    Member of Marine Corps Association.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify before any duly constituted 
committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                   James N. Mattis, Lt. Gen., USMC.
    This 11th day of September, 2007.

    [The nomination of Lt. Gen. James N. Mattis, USMC, was 
reported to the Senate by Chairman Levin on September 27, 2007, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on September 28, 2007.]

 
   NOMINATIONS OF HON. JOHN J. YOUNG, JR., TO BE UNDER SECRETARY OF 
  DEFENSE FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS; HON. DOUGLAS A. 
 BROOK TO BE ASSISTANT SECRETARY OF THE NAVY FOR FINANCIAL MANAGEMENT 
  AND COMPTROLLER; AND MAJ. GEN. ROBERT L. SMOLEN, USAF, (RET.) TO BE 
 DEPUTY ADMINISTRATOR FOR DEFENSE PROGRAMS, NATIONAL NUCLEAR SECURITY 
                             ADMINISTRATION

                              ----------                              


                       THURSDAY, OCTOBER 4, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, McCaskill, 
Inhofe, Sessions, Collins, Chambliss, and Thune.
    Other Senators present: Senators Stevens and Inouye.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Richard W. Fieldhouse, professional staff member; 
Creighton Greene, professional staff member; Michael J. Kuiken, 
professional staff member; Peter K. Levine, general counsel; 
Thomas K. McConnell, professional staff member; Michael J. 
McCord, professional staff member; and Arun A. Seraphin, 
professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; Gregory T. Kiley, professional staff 
member; Derek J. Maurer, minority counsel; David M. Morriss, 
minority counsel; Lucian L. Niemeyer, professional staff 
member; Sean G. Stackley, professional staff member; Kristine 
L. Svinicki, professional staff member; and Richard F. Walsh, 
minority counsel.
    Staff assistants present: Jessica L. Kingston, Ali Z. 
Pasha, and Brian F. Sebold.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Frederick M. Downey, assistant to 
Senator Lieberman; M. Bradford Foley, assistant to Senator 
Pryor; Gordon I. Peterson, assistant to Senator Webb; Stephen 
C. Hedger, assistant to Senator McCaskill; Sandra Luff, 
assistant to Senator Warner; Anthony J. Lazarski, Mark Powers, 
and Nathan Reese, assistants to Senator Inhofe; Todd Stiefler, 
assistant to Senator Sessions; Lindsey Neas, assistant to 
Senator Dole; and Stuart C. Mallory and Jason Van Beek, 
assistants to Senator Thune.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    The committee meets today to consider the nominations of 
John Young to be Under Secretary of Defense for Acquisition, 
Technology, and Logistics; Doug Brook to be Assistant Secretary 
of the Navy for Financial Management and Comptroller; and 
Robert Smolen to be the Deputy Administrator for Defense 
Programs, National Nuclear Security Administration (NNSA).
    Before I proceed with a brief introduction, I just want to 
give everybody the good, reassuring news that Senator Warner is 
doing just great. Many of us have checked in with his office, 
and everybody on this committee, everybody in the Senate, was 
worried about him, but I think our worries are over. The 
doctors have advised us, and this is as recently as the last 
few minutes when I checked with his office, that his heart is 
behaving; it's probably behaving a lot better than he is, as a 
matter of fact. The expectation remains that he will be home 
over the weekend, and back at work next week. After talking to 
his office, I would not be surprised to see him leaving the 
hospital ahead of expectations. His wife, Jeanne, of course, is 
doing great, and she has been with him consistently, morning 
and night; and her being there is, I am sure, a big boost to 
him. So, we'll start off with that good news this morning.
    We welcome our nominees and their families to today's 
hearing. We know the long hours that senior Department of 
Defense (DOD) officials put in every day. We appreciate the 
sacrifices that our nominees are willing to make to serve our 
country. They will not be alone in making these sacrifices, so 
we will thank, in advance, the families of our nominees for the 
support and assistance that we know that they will provide to 
our nominees, and that the nominees need.
    I'd like to extend a particular welcome to Mr. Young, who 
is well known to this committee because of his service here in 
the Senate from 1993 to 2001 as a professional staff member for 
the Defense Subcommittee of the Senate Appropriations 
Committee. Mr. Young has come before us for confirmation twice 
before, once as the President's nominee to be Assistant 
Secretary of the Navy for Research, Development, and 
Acquisition, and once as the nominee to be the DOD's Director 
of Defense Research and Engineering. He has served admirably in 
both capacities.
    Later on, we will ask you, Mr. Young and the other 
nominees, to introduce members of your family, but we think we 
will hold off on doing that until each of you make your opening 
statements, so that I can call on Senator Inhofe and then 
Senator Stevens, who I know has a hectic schedule.
    Mr. Young, if confirmed, will assume leadership of the 
DOD's acquisition organization at a particularly difficult 
time. Far too many of our major weapons acquisitions have been 
plagued by cost increases, late deliveries to the warfighters, 
and performance shortfalls. Earlier this year, the Department 
reported that 25 of its major defense acquisition programs had 
overruns of at least 50 percent. Since that time, the 
Department has added six more major weapons systems to that 
list. Over the last few years, we've seen an alarming lack of 
acquisition planning across the Department, the excessive use 
of time and materials contracts, undefinitized and other open-
ended commitments of DOD funds, and a pervasive failure to 
perform contract oversight and management functions necessary 
to protect the taxpayers' interest. The root cause of these and 
other problems in the defense acquisition system is our failure 
to maintain an acquisition workforce with the resources and 
skills needed to manage the Department's acquisition system.
    Earlier this year, the Acquisition Advisory Panel, 
chartered pursuant to the National Defense Authorization Act of 
Fiscal Year 2004, reported that ``The Federal Government does 
not have the capacity in its current acquisition workforce 
necessary to meet the demands that have been placed on it. The 
failure of the DOD, other Federal agencies, to adequately fund 
the acquisition workforce,'' the panel concluded, ``is penny 
wise and pound foolish, as it seriously undermines the pursuit 
of good value for the expenditure of public resources.''
    Mr. Brook served as Assistant Secretary of the Army for 
Financial Management in the first Bush administration, but he 
has another high qualification; he grew up in east Detroit. 
That's just a few miles from where I live. He attended the 
University of Michigan, graduating with a bachelor of arts 
degree in 1965, and a master of public administration degree in 
1967. If confirmed as Assistant Secretary of the Navy for 
Financial Management, and Comptroller, Mr. Brook will face the 
challenge of balancing the demands of ongoing operations and 
current readiness against the acquisition programs important to 
the future of the Navy. He will also play a key role in 
modernizing the Navy's business systems so that they can 
provide timely, accurate, and reliable financial information 
needed to manage the Department.
    Finally, Mr. Smolen has served in the U.S. Air Force for 
more than 30 years, rising to command positions at Air Force 
Space Command, Pacific Air Forces, and Air Force Materiel 
Command. Mr. Smolen, if confirmed as Deputy Administrator for 
Defense Programs, will be responsible for maintaining the 
safety and reliability of the nuclear weapons stockpile without 
conducting nuclear testing. Many of those who have assisted in 
performing this function in the past are at or past retirement 
age. Attracting new scientists and engineers with the right 
skills to meet the challenges of maintaining the stockpile, 
retaining those with necessary expertise and experience, and 
making sure that the knowledge is passed down, will be an 
increasingly difficult challenge in the next few years.
    Let me call, first, on Senator Inhofe. Then, Senator 
Stevens, we will call upon you. I understand Senator Inouye may 
also be coming. But let me first call on our acting ranking 
member, Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    You've already adequately explained why Senator Warner 
isn't here, and I do have his statement; I'd like to read just 
two sentences; and then put the entire statement in the record.
    Chairman Levin. Please.
    Senator Inhofe. In talking about the three nominees today, 
Senator Warner states, ``I believe these nominees are excellent 
choices. I would like to further voice my unqualified support 
for their swift confirmation. I would also like to offer my 
thanks and gratitude to their families for their service and 
support.''
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    Mr Chairman, regrettably, I am unable to attend this hearing today 
to receive the nominations of John J. Young, Jr. to be Under Secretary 
of Defense for Acquisition, Technology, and Logistics; Douglas A. Brook 
to be Assistant Secretary of the Navy for Financial Management and 
Comptroller; and Robert L. Smolen, to be Deputy Administrator for 
Defense Programs, National Nuclear Security Administration. I believe 
these nominees are excellent choices, and I would like to further voice 
my unqualified support for their swift confirmation. I would also like 
to offer my thanks and gratitude to their families for their service 
and support.
    Over his career, Mr. Young has established an outstanding record of 
service, working in a variety of posts in the government as well as in 
the private sector. Currently, Mr. Young serves as the Director, 
Defense Research and Engineering, a job he has held since 2005. In this 
position, Mr. Young overseas the $70 billion defense research 
enterprise, including the research laboratories of the armed services 
and the Defense Advanced Research Projects Agency (DARPA). Prior to 
this, Mr. Young successfully served as the Assistant Secretary of the 
Navy for Research, Development, and Acquisition. In addition, as a 
former professional staff member of the Senate Defense Appropriations 
Subcommittee, he is well versed in the workings of Congress, 
particularly the committees which have jurisdiction over the armed 
services. I expect that this experience will be useful throughout his 
testimony today.
    Mr. Young has had a distinguished public service career with over a 
decade of service to his country and I am pleased to offer my strong 
support for his nomination. He is eminently qualified to serve as Under 
Secretary of Defense for Acquisition, Technology, and Logistics.
    Likewise, Dr. Brook's service as a professor of public policy and 
Director of the Center for Defense Management Reform at the Naval Post 
Graduate School make him uniquely qualified for the position of 
Assistant Secretary of the Navy for Financial Management and 
Comptroller.
    Major General (Retired) Smolen will also bring a wealth of 
experience to his duties as the Deputy Administrator for Defense 
Programs, National Nuclear Security Administration, including over 
three decades of service in the United States Air Force where he 
commanded at every level and served as the Director of the Air Force 
Office of Nuclear and Counterproliferation.
    If confirmed by the Senate, I look forward to working together with 
these distinguished nominees to address the matters that currently 
confront our military during this challenging period in our history.

    Senator Inhofe. Mr. Chairman, I have had a chance to get to 
know the nominees who are here today. I feel very good about 
them. As you mentioned, Mr. Chairman, each one has an excellent 
background and, I think they are qualified for the positions 
for which they are nominated.
    Mr. Young, you joined the staff of the Senate 
Appropriations Committee from the private sector in 1993. You 
served from 2001 to 2005 as Assistant Secretary of the Navy for 
Research, Development, and Acquisition, and, in 2005, became 
the Director of Defense Engineering and Technology, DOD's Chief 
Technology Officer. Earlier this year, you were assigned duties 
as Principal Deputy. The diversity of your experience provides 
you with unique qualifications to build on your predecessor, 
promising initiatives and programs, as well as to meet the 
pressing demands that come with the position of the chief 
procurement officer for the DOD.
    Mr. Brook served as Assistant Secretary of the Army for 
Financial Management from 1990 to 1992. You have a wealth of 
experience in business, government, military service, as a Navy 
Reserve Supply Corps officer, and, most recently, in academia. 
We appreciate your willingness to leave your current position 
at the Naval Postgraduate School in Monterrey, CA, and return 
to Washington to serve in a similar capacity with the 
Department of the Navy. I understand that Senator Warner 
introduced you at your last nomination hearing, in February 
1990. I happened to be there at the time. I'm sure he would 
endorse you, as I said, in his opening statement.
    Major General Smolen, your Air Force service since you were 
commissioned in 1974 is extraordinary. I would only say that, 
in all the accomplishments you've done, you conspicuously left 
off the most significant thing about your career, and that is 
your 2 years as wing commander at Tinker Air Force Base in 
Oklahoma. So, without objection, I'd like his resume to include 
that, Mr. Chairman. [Laughter.]
    The positions to which you have all been nominated are 
enormously important to our national security in the 
organizations in which you serve. The personnel you will lead 
are some of the most dedicated public servants in the Federal 
workforce, and I believe that you folks are qualified to do 
that.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much.
    We're delighted to have Senator Stevens with us to 
introduce one of our nominees. I don't know if there's any 
higher praise that can be given to a nominee than what fellow 
staff members give to them, and our staffs are very, very high 
in their praise of you, Mr. Young. But, I think, if there is 
any higher praise, it would come from a Senator who knows you, 
perhaps, better than any other Member of the U.S. Senate, 
Senator Stevens.

 STATEMENT OF HON. TED STEVENS, U.S. SENATOR FROM THE STATE OF 
                             ALASKA

    Senator Stevens. Thank you very much, Mr. Chairman.
    I'd ask that my statement be included in the record.
    Chairman Levin. It will be.
    [The prepared statement of Senator Stevens follows:]

               Prepared Statement by Senator Ted Stevens

    It is an honor to introduce John Young to the committee today.
    I have known John for the past 16 years. From 1991 to 2001, he 
served as a staff member on the Defense Appropriations Subcommittee, 
which I co-chair with my good friend, Senator Dan Inouye. He is truly 
bipartisan in that he worked for both Senator Inouye and myself. John 
was a valuable member of our staff. He first came to our committee as a 
Congressional Fellow from Sandia National Labs. He became a 
professional staff member in 1993 and served as the staff analyst for a 
variety of Department of Defense (DOD) programs.
    President Bush nominated John to serve as the Assistant Secretary 
of the Navy for Research, Development, and Acquisition in 2001. He has 
proved in this role that he is a skilled leader dedicated to ensuring 
our men and women in uniform have the resources they need to complete 
the mission.
    John was instrumental in achieving significant improvements and 
efficiencies in Navy's acquisition programs. He used innovative methods 
to achieve cost savings in a variety of programs which had a tremendous 
benefit to the Department of the Navy.
    John's success as Assistant Secretary led President Bush to 
nominate him to serve as Director of Defense Research and Engineering. 
He has served in that position for the past 2 years and achieved a 
series of major accomplishments related to his responsibilities. For 
example, John formed and guided a Mine Resistant Ambush Protected 
(MRAP) vehicle Task Force at Secretary of Defense direction to ensure 
the successful and coordinated delivery of the maximum number of MRAP 
vehicles to deployed forces during calendar year 2007.
    He led a DOD Energy Task Force which coordinated DOD efforts and 
developed new initiatives.
    He coalesced and coordinated DOD efforts on Biometrics to ensure 
the program's successful support of global war on terrorism operations, 
to gain greater collaboration across the components, and to engage the 
interagency process in DOD Biometric activities.
    He published a DOD Science and Technology Strategic Plan.
    I am confident that John will approach his new position with the 
same commitment and dedication he exhibited during his time as 
Assistant Secretary of the Navy and as Director of Defense Research and 
Engineering.
    I join my co-chair and good friend, Senator Inouye, in supporting 
his nomination, and I urge the committee to act swiftly on this matter.
    Thank you.

    Senator Stevens. You have each, members of the committee, 
mentioned his background. Let me add that he actually became a 
member of the Senate staff in 1991, when he came to us as a 
congressional fellow from the Sandia National Labs before we 
convinced him that he should join the staff of the Defense 
Appropriations Subcommittee. I can tell you, without any 
question, that he's a man of integrity, commitment, and, 
really, totally devoted to his position. He's also a pretty 
good tennis player. With his help, I've been able to best 
Senator Warner. He won't mind me mentioning that, because it's 
not very often that that happens. [Laughter.]
    Chairman Levin. We'll notify Senator Warner of that.
    Senator Stevens. That'll wake him up, that's for sure. 
[Laughter.]
    Senator Inhofe. That'll get his heart going.
    Senator Stevens. He was Director of Defense Research and 
Engineering. He has been really outstanding in several ways. 
For instance, I'm not sure you know that he formed and guided 
the Mine Resistant Ambush Protected (MRAP) vehicle that we're 
all so interested in, to ensure that it's successful, and 
coordinated the delivery of the maximum number of MRAPs to be 
deployed in calendar year 2007. He led the DOD Energy Task 
Force, which has come up with several new initiatives. He 
coordinated the DOD efforts on biometrics, and above all, he 
has published a DOD Science and Technology (S&T) Strategic 
Plan.
    He's the right man for the right job. I tell you, I don't 
know of any person that I have known in the time I have been 
with my good friend, Senator Inouye, as one of us has been 
chairman of the Defense Appropriations Subcommittee since 1981, 
I think, of all the people that we've had who knew something 
about the DOD, and particularly in the area in which he is, 
really, very, very qualified, John Young has distinguished 
himself. So, we're proud that he has been nominated for this 
position, and we hope that you'll confirm him very rapidly.
    It's an honor to be here with him and his family. You'll 
find he has two fine young baseball players to greet you today. 
Beyond that, he's a good father.
    So, I recommend him highly, and hope we'll confirm him 
quickly.
    Thank you.
    Chairman Levin. Thank you very much, Senator.
    Senator Stevens. Senator Inouye will be along. The two of 
us have conducted our subcommittee in a manner that we are 
chairman and co-chairman. When I stepped out and Senator Inouye 
became chairman the first time, John Young remained in his 
position and worked for the whole committee. We have that type 
of subcommittee, and I do believe that you'll find he is a man 
that's committed to the DOD in a totally nonpartisan concept. 
He's a man of his word.
    Thank you very much.
    Chairman Levin. Thank you, Senator Stevens. That is a very 
meaningful statement, indeed.
    We're going to ask our witnesses, now, the standard set of 
questions that we ask all of the nominees that come before us. 
You can answer together.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest? [All three witnesses answered 
in the affirmative.]
    Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation 
process? [All three witnesses answered in the negative.]
    Will you ensure that your staff complies with deadlines 
established for requested communications, including questions 
for the record in hearings? [All three witnesses answered in 
the affirmative.]
    Will you cooperate in providing witnesses and briefers in 
response to congressional requests? [All three witnesses 
answered in the affirmative.]
    Will those witnesses be protected from reprisal for their 
testimony or briefings? [All three witnesses answered in the 
affirmative.]
    Do you agree, if confirmed, to appear and testify, upon 
request, before this committee? [All three witnesses answered 
in the affirmative.]
    Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when 
requested by a duly-constituted committee, or to consult with 
the committee regarding the basis for any good-faith delay or 
denial in providing such documents? [All three witnesses 
answered in the affirmative.]
    We thank you all.
    Why don't we start with you, Mr. Young, with your opening 
statement. If you would, please introduce your family or 
friends that are with you, we'd love to meet them, as well.

STATEMENT OF HON. JOHN J. YOUNG, JR., TO BE UNDER SECRETARY OF 
       DEFENSE FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS

    Mr. Young. Mr. Chairman, Senator Inhofe, and distinguished 
members of the committee, actually, I thank you very much for 
that opportunity.
    I would not be here today if it were not for the love and 
support of my wife, Barbara, my children, Nathan, William, and 
Kathryn. They have directly and indirectly contributed to my 
previous positions, and they will be a vital part of my ability 
to perform the duties of this position, if confirmed. My 
children were 10, 7, and 4 years old when they joined me for my 
first appearance before this committee. So, they do mark time 
for me, and, to some extent, for you.
    First, I'm honored that President Bush, Secretary Gates, 
and Secretary England have extended me their confidence and 
support in nominating me to lead the defense acquisition team.
    Chairman Levin. I wonder if we could interrupt you. I see 
that a dear friend of yours and ours has arrived, I know he 
wants to say a few words, and I know the kind of schedule he is 
keeping.
    We indicated, Senator Inouye, that you would probably be 
able to get here, and I don't think Mr. Young would mind it one 
bit if we interrupt his opening comments so that you could add 
your introduction and support. Senator Stevens just also spoke.
    So, let me interrupt you, Mr. Young, to welcome Senator 
Inouye.

STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM THE STATE 
                           OF HAWAII

    Senator Inouye. I thank you very much, Mr. Chairman.
    Chairman Levin, Senator Inhofe, Senator Sessions, Senator 
Collins, I'm pleased to be here to introduce Mr. John Young, 
the President's nominee to be Under Secretary of Defense for 
Acquisition, Technology, and Logistics.
    As many of you will recall, on two occasions I've had the 
privilege of introducing Mr. Young to this committee as the 
President's nominee for positions within DOD. I'm pleased to 
again speak for him in this new position for which he has been 
nominated.
    John Young left the committee to serve as the Assistant 
Secretary of the Navy for Research, Development, and 
Acquisition, and has been serving as the Director of Defense 
Research and Engineering. In both of these positions, he has 
earned high marks from senior leadership in DOD. These 
accomplishments are too numerous to list, but his tireless 
efforts to reform our business practices in shipbuilding, 
aircraft manufacturing, and weapons procurement are very well 
known to this committee and to the entire defense industry.
    Mr. Young's long experience in acquisition matters for 
Congress, DOD, and the private sector make him uniquely 
equipped to become the next Under Secretary of Defense for 
Acquisition, Technology, and Logistics.
    Therefore, I am most pleased to reintroduce him to you 
formally, even though I know that many of you have gotten to 
know him over the past 16 years. I again recommend him to you 
without equivocation.
    Mr. Chairman and members, he's a good person.
    Chairman Levin. Thank you.
    Senator Inouye. He's my friend.
    Chairman Levin. Nothing more needs to be said. Thank you so 
much, Senator Inouye for getting here.
    Senator Inouye. I thank you very much.
    Congratulations, John.
    Mr. Young. Senator, thank you so much.
    Chairman Levin. Okay, Mr. Young, let us now return to you 
for your opening statement.
    Mr. Young. Thank you, again, Mr. Chairman.
    I am honored that President Bush, Secretary Gates, and 
Secretary England have extended to me their confidence and 
support in nominating me to lead the defense acquisition team.
    Second, I believe it is critical for the defense 
acquisition executive to serve with the affirmation of the 
United States Senate. Thus, I am very appreciative of the 
committee's efforts to schedule and conduct this confirmation 
hearing.
    I'm also very grateful to Senator Inouye and Senator 
Stevens for their kind words of introduction. Their service to 
this Nation, their leadership, and their strong support for the 
men and women who serve our Nation provide a true example for 
me, and I have sought to constantly apply the principles I 
learned from these gentlemen.
    I believe my experiences have well prepared me for this 
challenge. I have served almost 2 years as the Director of 
Defense Research and Engineering. I also had the privilege of 
serving for over 4 years as the Assistant Secretary of the Navy 
for Research, Development, and Acquisition. Prior to that, I 
worked for 10 years on the staff of the Senate, providing 
oversight and analysis of aircraft procurement accounts, as 
well as virtually all research, development, tests, and 
evaluation programs. Finally, I have worked in industry and at 
Sandia National Labs as an engineer and project manager. I 
believe that the breadth, depth, and relevance of these 
experiences will allow me to effectively serve as the Under 
Secretary of Defense for Acquisition, Technology, and 
Logistics, if confirmed.
    I believe strongly in the capability and dedication of the 
defense acquisition team. However, I also believe that we need 
to make a number of course corrections to improve our 
performance. Our past efforts have delivered tremendous weapons 
systems and remarkable capability; however, the cost growth the 
Department has experienced represents a detrimental lost 
opportunity to procure greater quantities or additional new 
systems and capabilities. We must seek to deliver systems 
within the budget in order to avoid cutting healthy programs or 
to allow the acquisition team to deliver greater capability in 
other areas.
    We need to take a more active role in engaging the 
requirements process, as the acquisition team. We must mature 
technologies before moving into the costly final phases of 
development. We must seek jointness and interoperability, 
irrespective of service programs and budgets. We have to 
provide a robust set of tools for the men and women who have 
volunteered to protect and defend this Nation's freedom.
    If confirmed, I look forward to working closely with this 
committee and Congress. I assure you that I will work with 
determination to make these course corrections.
    I would offer my thanks to each of you for your support of 
every member of the DOD team, and I appreciate the chance to 
appear before the committee today.
    Chairman Levin. Thank you so much, Mr. Young.
    General Smolen.

 STATEMENT OF MAJ. GEN. ROBERT L. SMOLEN, USAF, (RET.), TO BE 
  DEPUTY ADMINISTRATOR FOR DEFENSE PROGRAMS, NATIONAL NUCLEAR 
                    SECURITY ADMINISTRATION

    General Smolen. Mr. Chairman, Senator Inhofe, distinguished 
members of the committee, I am both humbled and honored to be 
the President's nominee for the position of Deputy 
Administrator for Defense Programs at the Department of 
Energy's (DOE) NNSA.
    First, I appreciate the confidence placed in me by 
Secretary Bodman, and also by the NNSA Administrator, Tom 
D'Agostino.
    If confirmed, I will work with Congress to ensure the safe 
and efficient operations of the nuclear weapons complex while 
preparing NNSA's Defense Programs for the future to better meet 
the needs of the 21st century.
    I'd like to take this time, sir, to introduce my wife, 
Andree. She has really been the Rock of Gibralter through 33 
years worth of military service and more moves than I can 
stand. I certainly appreciate her willingness to allow me to, 
again, hopefully, continue to serve this great Nation.
    I have three adult children. They're spread out all over, 
and, unfortunately, are unable to be here today, but I also 
want to thank them for the support they've given me throughout 
the years, and their understanding.
    As I began to think about my retirement from the Air Force, 
which was just a couple of months ago, I originally thought 
that perhaps I would pursue employment outside of government, 
and I really hadn't contemplated anything of the nature of the 
job that I am coming to talk to you about. I've always been a 
big believer in public service, obviously. When the phone rang, 
and I was asked if I would like to be considered for this 
position, I simply believed it to be an extension of my service 
to the Nation in uniform, and I knew instantly that I wanted to 
pursue this challenge. I believe, if confirmed, that I will 
continue to make a difference by building on this lifetime of 
service. Nothing has made me prouder than serving my Nation, 
with 33 years of military service, the last 10 of which I was 
closely involved in operational nuclear issues within the Air 
Force. Prior to my last assignment, which was the Commander of 
the Air Force District of Washington, I served first as the 
Deputy Director of Air Force Nuclear and Counterproliferation, 
and later as the director of that office, before going over to 
the White House, where I was the Director of Strategic 
Capabilities Policy that encompassed all of the nuclear 
programs, as well.
    Prior to that, as Senator Inhofe mentioned, I had a number 
of opportunities to command, one of which was at Tinker Air 
Force Base. I have commanded at the squadron group wing and 
major command level.
    I trust that the background that I have demonstrates that I 
can appropriately be qualified to be the Deputy Administrator 
for Defense Programs; and to enhance my knowledge and 
expertise, if confirmed, I plan to immediately engage with 
those people who can help me better understand the complexities 
of the issues and prioritize the challenges before NNSA's 
defense programs. This will include meeting with staff and 
managers in key parts of the program, both at headquarters and 
in the field, along with NNSA's and DOE's management, their key 
partners, such as the DOD and the Defense Nuclear Facilities 
Safety Board, and Congress, as well.
    As a result of dramatic improvements in procedures, tools, 
and policies, just this week, NNSA announced that they 
increased the rate of nuclear weapon dismantlements for fiscal 
year 2007 by 146 percent over last year's level. They are 
ensuring that these weapons can no longer be used again, and 
thus, demonstrating that the United States is serious about 
nonproliferation leadership role in the global community. I'm 
also equally proud of the steps taken to fulfill the 
President's direction to reduce the stockpile to nearly one-
half by 2012, compared to the 2001 levels.
    I'm encouraged by NNSA's future plans to transform and 
reduce the nuclear weapons stockpile and develop a supporting 
infrastructure that is more modern, smaller, efficient, and 
more secure to meet the challenges of tomorrow. I support the 
ongoing studies to evaluate whether we should pursue a strategy 
of reliable replacement to our cold war nuclear warheads. These 
studies will allow NNSA to gather the data necessary for this 
and subsequent administrations, in consultation with Congress, 
to make decisions on our nuclear weapon stockpile.
    In addition to the contribution of NNSA's dismantlement 
efforts, the reliable replacement strategy also offers positive 
implications for our nonproliferation objectives. The reduced 
possibility of the need to conduct underground tests to 
diagnose or remedy a stockpile reliability problem will bolster 
efforts to dissuade other countries from testing.
    If confirmed as the Deputy Administrator for Defense 
Programs, I will draw upon over 30 years of service in national 
security matters to provide continued sound leadership for the 
men and women of NNSA who work so hard on these critical 
missions. With your approval, it would be my great privilege to 
continue my career of service with NNSA.
    I thank you very much for allowing me to be here today to 
be able to address, and for your consideration for this 
important position.
    Chairman Levin. Thank you so much, General.
    Dr. Brook?

STATEMENT OF HON. DOUGLAS A. BROOK TO BE ASSISTANT SECRETARY OF 
       THE NAVY FOR FINANCIAL MANAGEMENT AND COMPTROLLER

    Dr. Brook. Mr. Chairman, thank you very much.
    Mr. Chairman and members of the committee, I appreciate 
very much your scheduling this hearing today to consider my 
nomination. I am, similarly, honored that the President, the 
Secretary of Defense, and the Secretary of the Navy have put 
forth my nomination, and that I have the opportunity to appear 
before you today.
    I'm accompanied today by my wife, Mariana, seated behind 
me. We've been married for 33 years. Mariana is a native of 
Charlotte, NC, and we currently live in Pacific Grove, CA. 
Seated next to Mariana is Professor Cynthia King. Dr. King is a 
colleague of mine at the Naval Postgraduate School, and I'm 
gratified at the support that I have from the President, the 
Provost, the Dean, and my faculty colleagues at the Naval 
Postgraduate School.
    Mr. Chairman, it was 17 years ago that I last appeared 
before this committee in the capacity of a nominee. I believe 
you were a member of the committee, Mr. Chairman, as were some 
other of your colleagues. At that time, Senator Warner 
presented me, as Senator Inhofe mentioned, as a nominee for 
Assistant Secretary of the Army for Financial Management. I now 
find myself before you today as the nominee to be Assistant 
Secretary of the Navy for Financial Management.
    If I recall correctly, at that hearing 17 years ago, I 
pledged to the committee that, if confirmed, I would work, to 
the best of my ability, to meet my responsibilities under title 
10, and to exercise responsible leadership over the financial 
operations of the Army.
    Today, Mr. Chairman and members of the committee, I make 
that same pledge to you. If confirmed, I will work, to the best 
of my ability, to fulfill my duties under title 10 and exercise 
responsible leadership over the financial operations of the 
Department of the Navy.
    Thank you, again, Mr. Chairman, for considering my 
nomination. I am pleased to respond to your questions or 
comments, and to hear your advice and concerns.
    Chairman Levin. Okay. We're going to try an 8-minute first 
round of questioning.
    Mr. Young, let me start with you. As you mentioned, and I 
mentioned in my opening statement, we have a large number of 
major defense acquisition programs that have exceeded their 
cost estimates by significant amounts. In January 2007, it was 
reported that of the 25 defense acquisition programs that did 
exceed their estimate by that amount, 8 were in the Army, 8 in 
the Navy, and 9 in the Air Force. Another six have exceeded 
their critical cost-growth threshold since then. Why is it, do 
you think, that so many of our programs are so far over budget?
    Mr. Young. I believe, sir, there are, unfortunately, a 
number of factors in it. One, our budget process seeks to make, 
in some cases, optimistic estimates about what it will cost to 
develop a system and how much time it will take to deliver that 
system. Then, we frequently set the requirements bar 
optimistically high, in hopes that the technology will come in 
a timely way to meet that requirement. When all those forces 
collide, you end up with an optimistic schedule, excessive 
requirements, and not enough funding. Then, you get in a spiral 
where the programs take longer and cost significantly more. The 
decisions you make along the way are suboptimal. It would be my 
hope to do a much better job of structuring programs to 
realistic requirements, realistic schedules, and as realistic 
as possible an estimate of the budget it will take to do that, 
and then manage those carefully. Programs have to be managed as 
a contact sport, and I think, as you said, Mr. Chairman, we 
probably need to look hard at making sure we have adequate 
talent in the DOD to manage those programs.
    Chairman Levin. One of the shifts that has occurred over 
time, Mr. Young, is that the DOD now spends more for the 
acquisition of services than it does for products, including 
major weapons systems. Yet, the DOD Inspector General (IG) and 
the Government Accountability Office (GAO) have reported that 
the Department consistently fails to conduct required 
acquisition planning and contract oversight functions for its 
service contracts. So, the GAO now is reporting that the DOD is 
``ill-positioned to determine whether it is getting what it 
pays for under these service contracts.'' Can you tell us what 
steps you think you might be able to take, when confirmed, to 
ensure that the taxpayers are getting their money's worth from 
the $100 billion-plus that the DOD spends every year on 
contracting for services?
    Mr. Young. Yes, Mr. Chairman, there are efforts underway 
now to develop a consistent set of policies across the DOD for 
acquiring services and to coordinate the purchases of 
procurements between the services, and then, wherever possible, 
use competition as the driving force to help improve the value 
we get. Then we have to take steps to increase, as you've said, 
our oversight of those contracts. I will push in all of those 
areas to improve our acquisition of services.
    Chairman Levin. Last week, the Congress Daily reported that 
the Army is currently unable to take delivery of more than 
1,000 badly-needed family of medium tactical vehicles (FMTV) 
trucks, because the commercial off-the-shelf (COTS) parts in 
the truck's engine and transmissions contain specialty metals 
that don't comply with the Berry Amendment. Until this issue is 
addressed, the DOD will reportedly be unable to accept 2,200 
trucks that are now under contract, or to order any additional 
trucks from that contractor.
    Now, there's a rule, being currently considered by the DOD, 
which is called a COTS waiver, that would enable it to accept 
delivery of the FMTVs and other similar systems which contain 
these small amounts, presumably inadvertently, of COTS items. 
Do you know, offhand, the status of that rulemaking? How 
quickly would you hope that the DOD can address this problem?
    Mr. Young. I tried to get the status of this in preparation 
for the hearing, sir, and we have been able to accept a portion 
of those vehicles under the COTS waiver you talked about, 
because the law was changed, and the change in the law has 
affected it. We were building trucks in stride, and the law 
changed. Some of those trucks we have now been able to accept 
with a COTS waiver. For another portion of the trucks, in new 
orders, we have to take additional steps. I believe there's a 
determination of nonavailability that will help us continue 
procuring the trucks that the military must have.
    Chairman Levin. Okay.
    Dr. Brook, let me ask you a few questions now. The DOD has 
been working, over the last 6 years, to develop a business 
enterprise architecture to ensure that its business systems 
work in a coordinated manner to provide timely, accurate, and 
reliable information to the managers of the DOD. Unfortunately, 
the Comptroller General has reported that the enterprise 
architectures of the military departments are not mature enough 
to responsibly guide and constrain investment in business 
systems. According to the GAO, the Navy has fully satisfied 
only 10 of the 31 core framework elements of an enterprise 
architecture. Are you familiar with this problem? If so, what 
would be your plans to address it?
    Dr. Brook. I am not familiar with the details of the 
problem, but I sympathize with the statements of the 
Comptroller General. This has been a difficult undertaking for 
the DOD over many years, to conduct systems modernization and 
get to the desired goal. I'm not sure what the Comptroller 
General means, completely, when he talks about the maturity of 
systems modernization, but, if confirmed, I would consider that 
to be part of my responsibilities to look into, and I will look 
forward to working with you on that topic, Mr. Chairman.
    Chairman Levin. Would you, when you're confirmed, get back 
to us after you've had a chance to review that issue? Let us 
know what steps are being taken.
    Dr. Brook. Yes, sir.
    [The information referred to follows:]

    Developing a business Enterprise Architecture for an organization 
as large and diverse as the Department of the Navy is a complex task. 
Having been recently confirmed, I will provide my written response to 
your office in January 2008 giving me the opportunity to thoroughly 
review details associated with this issue.

    Chairman Levin. Over the last several years, the DOD has 
taken a number of steps to realign its management structure to 
expedite and enhance its business transformation efforts. The 
DOD established a new Defense Business Systems Management 
Committee, the Business Transformation Agency, and Investment 
Review Boards. The military departments do not appear to have 
taken similar organizational steps, and decisionmaking remains 
stovepiped in separate chains of command for financial 
management, information technology management, acquisition 
management, and other functions. Do you believe, Dr. Brook, 
that the organizational structure of the Department of the Navy 
is properly aligned to bring about business systems 
modernization and financial management improvements? If not, 
what steps do you plan on taking, if you're familiar enough to 
share those with us?
    Dr. Brook. Senator, I'm not entirely sure that the 
Department of the Navy's governance structure for business 
management reform is aligned with DOD, and I need more 
information in order to respond intelligently toward that.
    I do see that the DOD has, as you've mentioned, been 
evolving different organizations and different alignments for 
governance and implementation of business systems reform, and 
it seems to me that if the Services, including the Navy, 
perceive stability at the DOD level, it should follow suit with 
their own organizational alignment.
    Chairman Levin. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Back, many years ago, at the first confirmation hearing of 
Secretary Rumsfeld, I was pointing out some problems, as I saw 
it, because the people of America have the expectation that we 
would have the best of everything, and I am just contending 
that we did not. So, in pursuing this with Secretary Rumsfeld, 
I said, ``all the generals get together, and they're going to 
decide, what are we going to need 10 years from now?'' and 
they're going to be wrong. I've said, several times, Mr. 
Chairman, when I was in the House Armed Services Committee, we 
had someone, in 1994, testify that in 10 years we wouldn't need 
ground troops. So, I said, ``Well, how do you resolve the 
problem?'' He said, ``Well, for the entire 20th century, the 
defense spending was 5.7 percent of gross domestic product 
(GDP). After the drawdown of the 1990s, it went down to 2.7 
percent.'' Now, unfortunately, when something happens, and then 
you get into a war, you have to spend money on the things that 
are bleeding the most, and quite often, that's not S&T.
    According to a recent press report, you recently sent a 
memorandum to the Secretary of Defense in which you assess 
current spending of defense S&T as inadequate to keep pace with 
emerging threats. The report concluded that the Pentagon has 
been ``coasting on basic science investments of the last 
century and noted that major corporations have disestablished 
science centers and research labs.'' You concluded, ``The 
reality is that the DOD is the predominant source of funds 
pursuing basic and applied research in the physical sciences.'' 
I guess the question would be, are you concerned about the 
adequacy of the current investment in S&T? What would you do to 
improve it?
    Mr. Young. I think, Senator, I offer a couple of answers. 
Behind some of the context of that report and that memo is the 
fact that S&T spending today in the DOD, on a historical basis, 
going back 25 years, is at roughly its highest level that it's 
been. In constant-dollar terms, we have a very high level of 
S&T spending, presently.
    To be fair, Secretary Gates asked me to offer him ideas 
about the health of the S&T programs in areas where we can make 
investments. I believe the S&T program could be more robust, 
because we now find ourselves with new challenges. The S&T 
program, that is healthy now, was largely defined, while it's 
not totally true; we've made adjustments, but a lot of it was 
defined by adversaries we expected to face on more conventional 
battlefields. Today, as you know very well, the global war on 
terrorism is facing unconventional adversaries on 
unconventional battlefields, and that demands new investments 
in other areas. So, I do believe there are some demands to 
investigate new technologies that could help us in the warfare 
we'll face in the future, and that that suggests we have to 
make adjustments in S&T.
    Senator Inhofe. Yes, well, don't get me wrong, I agree with 
you. I would have probably given the same report. It goes 
beyond just S&T. So, I guess what I'd ask of you and everyone 
here is, as we go through the budget process, we be totally 
upfront with each other and make sure that you do have what is 
going to be necessary to meet these needs.
    In a similar line, I'd ask General Smolen and Secretary 
Young the same thing. As noted by the National Research Council 
in their report, ``Rising Above the Gathering Storm,'' U.S. 
advantages in S&T have begun to erode. The United States is 
producing fewer scientists and engineers than our economic 
competitors, such as India and China. We all know this is true, 
and that this is not something that you can correct from your 
position that I hope you'll be assuming. But we can look at our 
laws as they are right now, in terms of recruiting people. It 
bothers me when I see India and China and other countries 
cranking out more scientists than we do. Do you have any 
thoughts on how to correct this problem? I assume you agree 
it's a problem. Either one of you.
    Mr. Young. For my part, Senator, I absolutely do. I 
inherited, I did not create, a problem called the National 
Defense Education Program, where we reach out and recruit young 
graduate-school-level engineers. I've doubled, in 2006, or in 
2007, and doubled again in 2008, the funding for that program, 
with the support of the Secretary and the Deputy. We've also 
taken on expansion of that program into the high school level 
to get kids interested in math and science early, so they do 
become engineers. Then, beyond that, I'm very interested in 
doing something that I think addresses the chairman's 
questions, and that is, we mature technology by building 
prototypes. In years past, we built a lot of prototypes. We 
need to do that to mature technology, help us control costs. 
That very process, I believe, will inspire a lot of young 
people to come and work on DOD issues.
    Senator Inhofe. What do you think, Dr. Brook? Because you 
deal with the postgraduate group out there. Do you have any 
ideas you want to share with us?
    Dr. Brook. No, sir, I don't. I'm in the business school 
there and on most campuses there's a wide gulf between the 
business school and the engineering school.
    Senator Inhofe. We seem to be getting enough lawyers. 
[Laughter.]
    It seems like--well, anyway.
    Chairman Levin. Your time is up. [Laughter.]
    Senator Inhofe. No, it's not. Almost. [Laughter.]
    Let me ask you this question, then, if I could, Dr. Brook. 
The committee is encouraged by the DOD efforts to modernize its 
financial management systems and accountability. The creation 
of the Business Transformation Agency within the Office of the 
Secretary of Defense and annual detailed enterprise transition 
plans are positive signs toward the DOD getting its financial 
house in order. Now, I ask, if you are confirmed, what priority 
would you assign to the review of the Navy's enterprise 
transition plan contributions and its financial management 
modernization?
    Dr. Brook. Senator, that would be a very high priority of 
mine. That's an area of specific interest for me, to see that 
the financial management systems of the Department of the Navy 
are improved. If confirmed, I will spend a great deal of 
attention on that.
    I think that the creation of the Defense Business 
Transformation Agency, as you mentioned, is a significant step 
in trying to institutionalize the efforts inside the DOD to 
drive these reforms. If confirmed, I'd look forward to 
participating in that effort.
    Senator Inhofe. All right. I think that the chairman kind 
of talked, but not directly, about the Defense Integrated 
Military Human Resources System (DIMHRS) program; or I think 
it's pronounced ``dime-hers.'' I'd like to have your comments 
as to your support of the full implementation of that program.
    Dr. Brook. Senator, I am only vaguely aware that the DIMHRS 
initiative is underway. I understand it's a way to merge 
personnel management and pay in a system, but I don't know any 
of the details on that. I'm not able to comment.
    Senator Inhofe. All right.
    Well, my time is expired. I would ask Kathryn if she wants 
to say anything about her daddy. [Laughter.]
    No. Okay, that's fine. [Laughter.]
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    Welcome to all of you, and thank you for your service.
    One of the things I've struggled with since I began trying 
to track financial accountability within the DOD is figuring 
out who to blame. It's really hard to figure out who to blame 
when something goes terribly wrong and taxpayer money is wasted 
at unprecedented levels, because of the way this whole thing is 
set up.
    Mr. Young, what I would ask you is, who should be blamed? 
If you're aware, I would love to hear, has there ever been, 
that you know, any military commander who has lost a promotion 
or who has been demoted, or anyone who has been fired, for 
failure to oversee a contract appropriately, or failure to 
definitize a contract appropriately, or failure to track the 
monitoring of a contract appropriately, since you've been at 
the DOD? Are you aware of anyone who has ever been demoted or 
denied a promotion or fired over their failure to hold the 
people in the DOD and in the military accountable for the way 
they spend money?
    Mr. Young. Yes, Senator, I'm aware of a few instances where 
people were disciplined in those manners because of the failure 
of a program to achieve success.
    Senator McCaskill. Let me ask you, specifically, at what 
point in time will it get to your desk? Like the Logistics 
Civil Augmentation Program (LOGCAP) contract, for example, at 
what point in time will it get to your desk? When we hit 10 
billion of undefinitized contract? When we hit 15 billion? We 
came in at 20 billion, in 1 year, of an undefinitized contract 
that was cost-plus. At what point in time does it get to your 
level, and you say, ``Wait a minute, something is not right 
here''?
    Mr. Young. As you're probably aware, there are defined 
thresholds for acquisition-category programs, several hundred 
million dollars of research and development (R&D) or higher 
amounts for the procurement account, which guarantee I have a 
voice in the milestone decision process for those programs. It 
is my hope though to pursue those programs and get the team to 
pursue those programs with the kind of discipline I think you 
are seeking to demand.
    Senator McCaskill. Did the LOGCAP program get to your 
predecessor's desk? Did that contract get to that desk?
    Mr. Young. I'm not sure I can answer that question. I 
wasn't part of those discussions, but I believe, from memory, 
that he did participate in, certainly, defining the acquisition 
strategies for the new LOGCAP contract.
    Senator McCaskill. If you wouldn't mind getting back to me 
as to if it ever got to your predecessor's desk, and if so, 
when it got to your predecessor's desk? That's part of my 
problem.
    [The information referred to follows:]

    In general, the Department's approach to the management of 
contracts, including undefinitized contract actions (UCAs), is to apply 
a common policy and rely on decentralized execution of that policy. The 
Department's policy on UCAs is derived from 10 U.S.C. 2326, and it is 
implemented in Department of Defense (DOD) Federal Acquisition 
Regulation Supplement (DFARS) Subpart 217.74, which applies to all DOD 
components.
    Contracting officers must obtain the approval of the head of the 
contracting activity before entering into any UCA or changing the scope 
of an UCA after performance has already begun. The DFARS requires UCAs 
to be definitized within 180 days. Not more than 50 percent of the 
predefinitization not to exceed price may be obligated prior to 
definitization, unless the contractor submits a qualifying proposal 
before that 50 percent has been reached. In that case, no more than 75 
percent may be obligated before definitization. A request to waive 
these limitations must go to the head of the agency (e.g., the 
Secretary of the Army or designee for an Army UCA), and no waiver may 
be authorized except to support a contingency operation, a humanitarian 
operation, or a peacekeeping operation.
    Presently, nothing in law, policy, or regulation requires the head 
of a contracting activity to notify higher authority regarding the 
approval of a UCA or the head of an agency to notify the Office of the 
Secretary of Defense regarding a waiver needed to support a contingency 
operation, a humanitarian operation, or a peacekeeping operation. 
However, in fiscal year 2008, the Director of Defense Procurement and 
Acquisition Policy will be working in consultation with me to develop 
updated policy guidance for the implementation and enforcement of 
requirements applicable to UCAs.
    Given the estimated size of the Logistics Civil Augmentation 
Program IV, it is my understanding that the planned program acquisition 
strategy was reviewed by the Office of the Secretary of Defense staff 
in July 2006 and subsequently discussed with Mr. Krieg, the then Under 
Secretary of Defense for Acquisition, Technology, and Logistics.

    Senator McCaskill. I mean, you have to understand that, 
when I was in Iraq, and they put up a PowerPoint slide of the 
LOGCAP contract and the slide went from 20 billion 1 year, to 
15 billion down, and I kept waiting for them to say to me, 
``This is the great work we did,'' and then the woman who was 
making the presentation in Baghdad said to me, ``The difference 
between the 20 billion and the 15 billion was a fluke.'' Well, 
when we have a $5-billion fluke, we have a real problem, in 
terms of oversight and accountability, in terms of the way 
these contracts are being managed.
    Let me go to another subject, briefly, contractors 
overseeing contractors, lead system integrators (LSI). I think 
that, you know the Littoral Combat Ship (LCS) is a good example 
of where an LSI obviously didn't work. I know we have an LSI 
with Future Combat Systems. This idea that the contractors are 
watching contractors, and, particularly, we've seen examples 
where contractors are watching contractors within cost-plus 
contracts. So, let me see, we hire someone to do something, and 
then they get to make money off the fact that they're going to 
hire somebody else to do it and watch them. I don't think 
that's what was envisioned, in terms of a cost-plus contract; a 
contractor hiring a contractor who may hire a contractor, and 
then the contractor at the top is making a cut off every single 
one, and we've exponentially increased the cost of the contract 
for the American taxpayer. I know you've been involved in the 
littoral ``problem,'' I will gently call it. I think I could 
call it something much more colorful. But if you would comment 
about this phenomenon.
    Mr. Young. Senator, I share your concerns about that, and I 
believe those strategies, to use LSIs, have to be considered 
very carefully. The best example I can tell you is that, with 
Secretary England's support, in the Navy, we essentially 
reversed that structure in the DD(X) destroyer program, because 
there was a fee-on-fee, as we call it, issue, and we didn't 
think we were getting the best value for the taxpayer's dollar. 
So, I think those strategies have to be considered carefully, 
and their use will be more rare, in my view, unless it's well 
justified.
    Senator McCaskill. I'm aware of that, and I'm encouraged by 
it. We actually, as we say, changed the course of the ship, 
which is great.
    Finally, let me ask you about IG and auditing resources. If 
you look at the growth, in terms of the acquisition budget over 
the last 10 years, if you make the assumption that DOD had the 
right number of auditors and investigators and acquisition 
personnel prior to this growth, then a pretty strong case can 
be made that you don't have enough. Now, having said that, 
we've done a global calculation of around 20,000 people that 
work in DOD in some form of auditing or investigations, and I'm 
looking for that work product of 20,000 people, and I'm 
searching it out, and I'm going to continue to search it out, 
because it's not immediately transparent to the public where 
that work product is. I think there's a whole lot of circle-
the-wagons that go on. I did not realize that the IGs within 
the active military are not truly what we think of as IGs. They 
don't report outside, they just go up the chain of command, and 
try to help their commander. They're not providing transparency 
to the public. Are you going to push for additional acquisition 
personnel or auditing personnel or IG personnel as part of your 
tenure?
    Mr. Young. Senator, I actually had a chance to have a 
discussion with the chairman yesterday about the fact that we 
have legislative restrictions, which I believe this committee 
is dealing with, that I hope the committee will succeed to give 
us the flexibility to possibly add resources in acquisition 
personnel, contracting personnel, and audit personnel. The best 
example I can give you, or an anecdotal piece of data, is, 
since 2001, the Defense Contract Management Agency has actually 
been reduced from 12,100 to 9,700 people. In the early 1980s, 
there were twice as many as those numbers. So, in light of the 
instances you cited, the procurement budget's gone up to $100 
billion, and the R&D budget has gone up substantially. It seems 
we're going to have to apply more resources here to get 
effective oversight.
    Senator McCaskill. Mr. Chairman, I would certainly want to 
help with that, because I think what's happened is, if it's a 
new system, or if it's something that people want to fight for, 
for their home district, we're more than willing to write as 
big a check as we're asked to write. But somehow we have 
artificially put constraints upon the level of personnel that 
are watching these dollars, and there is no way we can expect 
them to do the work that taxpayers expect if we're throwing all 
the money at them that they ask for, in terms of operational 
funds, but we will not allow them to have sufficient personnel 
to watch the way we're spending that money. We're cutting off 
our nose to spite our face.
    I thank you, Mr. Chairman.
    Chairman Levin. Senator McCaskill, just, on that point, 
what Mr. Young was referring to is a couple of provisions in 
our bill, that will be going out at conference, which address 
the two issues. One is a cap, which was put on the number of 
personnel, which Congress placed. So, when you ask who's to 
blame, in terms of the reductions in the personnel in 
acquisition, we have the share of our responsibility.
    Senator McCaskill. I wasn't here. No, just kidding. 
[Laughter.]
    That was a joke.
    Chairman Levin. It's a fair comment. Those of us who were 
here, the administration at the time, carry a share of 
responsibility. There were some debates on that issue, by the 
way. I haven't gone back to reconstruct those debates, but that 
was not done without transparency. That was a debated item; 
should we reduce the number of personnel? That's one thing. 
We're going to take that cap off, or we're going to change that 
cap, in our bill.
    Second, there was an artificial limit on the number of 
acquisition personnel. We have a lot more acquisition going on, 
but we have the same number of people, and we've made a change 
in that in our bill, as well.
    Senator McCaskill. That's great.
    Chairman Levin. We are very aware and active, in terms of 
our efforts, this year, to try to get more folks involved in 
acquisition oversight.
    So, there are two things, specifically in the bill going to 
conference, which will address the issue which you very 
properly raise, and which you're so familiar with. Hopefully, 
in conference we'll be able to persuade the House that our 
course is the correct course. I'm not familiar with what 
they've done, they may have similar provisions, I don't know. 
If not, hopefully you can, and I know you will, weigh in on 
that subject at conference.
    Senator McCaskill. Thank you.
    Chairman Levin. Thank you very much.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    I want to also extend a welcome to each of you gentlemen, 
and thank you for your willingness to serve your country, and 
to your families, who also make great sacrifice in that regard. 
We appreciate their willingness to be a part and be involved in 
public service, as well.
    Mr. Young, I want to get on a line of questioning here 
dealing with a recommendation in the Quadrennial Defense Review 
(QDR). In the last QDR, the Air Force set a goal of increasing 
long-range strike capability by 50 percent by 2025. That is a 
goal which I welcome. Our current bomber fleet is performing 
exceedingly well in both Afghanistan and Iraq; however, I am 
concerned that we are heading toward a gap in our long-range 
strike capability. The United States hasn't built a new bomber 
since 1997. To compound the problem, we have advanced surface-
to-air missiles that are being proliferated worldwide, which 
are creating formidable air defenses. As we saw in Turkey 
during the invasion of Iraq, we can't always count on nations 
to allow us to launch attacks on our enemy from close range. 
While the F-22 and F-35 have excellent stealth capability, they 
will not, for example, be able to fly from Diego Garcia to a 
target thousands of miles away with limited fuel supply and 
limited payload to strike a target as effectively as a B-1 or a 
B-2 or a B-52.
    Early this year, the Air Force released the long-range 
strike white paper. The white paper quotes that a procurement 
spike for the next-generation long-range strike platform is 
expected to begin in 2011. As the DOD builds the fiscal year 
2010 through fiscal year 2015 program objectives memorandum, 
are you going to support the proposed 2011 funding spike for 
the next-generation platform?
    Mr. Young. Senator, I'd certainly support the goal outlined 
by the QDR. Within that, though, I expect to work hard with the 
Air Force and on behalf of the DOD to make sure we set the 
requirements bar commensurate with the time and the budget we 
intend to allot to that program. I think I would agree with you 
that there is definitely merit to developing a new bomber, but 
I'm anxious not to bring you another program where we 
optimistically reach for too much requirement, we under-budget 
it, and we set the schedule that may be optimistic. I want to 
work with the Air Force to define a program that we have a high 
confidence with coming back to you and telling you we'll 
deliver successful results. With that, we will try to meet 
those goals.
    Senator Thune. The Air Force expects to have that, sort of, 
revolutionary long-range strike capability by 2035. Do you 
believe that the DOD will need a new long-range strike platform 
between now and 2035, or do you think that the current bomber 
fleet can survive that long, based on scheduled upgrades?
    Mr. Young. Senator, I'd have to go and look at that set of 
data. I have not looked at it in that level of detail. The 
current initiative is pursuing a goal of a bomber possibly in a 
gap by 2018. That's the first issue at hand. Can we define a 
program and a set of requirements to meet that goal? There's no 
question, in that longer-term timeframe, we have to have more 
like a revolutionary bomber capability, and we'll have to work 
with the Air Force to also define that program. It'll start 
with technology investment to enable such a capability.
    Senator Thune. If we don't have that kind of a capability, 
what is the alternative? I mean, what else do we do to deal 
with the threats that we're going to be encountering? If we're 
not looking at a next-generation bomber, what are the 
alternatives?
    Mr. Young. I think we have no alternative but to look at a 
next-generation bomber. I mean, we do have tools in our 
inventory. There are significant weapons; we certainly have 
Tomahawks and others. But to achieve the range you're talking 
about, you have to have a next-generation bomber in your tool 
set.
    Senator Thune. Okay. One of the things that I wanted to 
come back to you, too, in dealing, again, with bombers, the B-1 
has played a vital role in the global war on terrorism. It's 
provided close air support to troops on the ground, convoy 
support for road patrols, and acts as a significant show of 
force. The B-1 can also carry the largest payload of guided and 
unguided weapons in the Air Force inventory, and is the 
backbone of America's long-range bomber force. It can rapidly 
deliver massive quantities of both precision and nonprecision 
weapons against any adversary literally anywhere in the world 
at any time. In addition, the B-1 and the F-15E are the only 
weapons with the capability to fly low-altitude missions, day 
or night, in any weather.
    Given those contributions, I was surprised by a recent 
decision, in July of this year, by your predecessor, as the 
Under Secretary of Defense for Acquisition, Technology, and 
Logistics, Kenneth Krieg, to remove the B-1B from the list of 
those Air Force programs designated with a DX rating, to be of 
the highest national defense urgency. Under the Defense 
Priorities and Allocations System, the priority of the B-1 
bomber was lowered to a DO rating, indicating critical to 
national defense; however DX takes precedence over DO programs. 
So the B-1B will no longer merit having the highest-priority 
access to parts, materials, and commodities.
    Now, it is important, I think, to ensure that our most 
pressing military needs are met first. So, based on my 
concerns, in August of this year Senators Johnson, Hutchison, 
Cornyn, and I sent a letter to your office requesting that the 
DOD re-evaluate that decision to remove the B-1B as one of 
their highest-priority programs. It's been over a month since 
we sent the letter, and we've not received a response. So, I 
would ask that, assuming you're confirmed in the position, if 
you could get back to us on the status of that request, we 
would greatly appreciate it.
    Mr. Young. Absolutely, Senator. I'm sorry we have not 
replied.
    [The information referred to follows:]

    Senator, our response to your letter of August 28 regarding the B-
1B program being assigned a DO rather than a DX industrial priority 
rating is in the final stages of review.
    The Department applies DX industrial priority ratings to those 
programs approved by the Secretary of Defense or Deputy Secretary of 
Defense based on two criteria. First the program must be of the highest 
national defense urgency based on military objectives and second, the 
program must have compressed milestone delivery schedules which can 
only be met with the industrial priority of a DX rating. During a 
comprehensive review of the DX list earlier this year, the Department 
made the decision to change the Defense Priorities and Allocations 
System priority for several programs, including the B-1B program, from 
DX to a DO rating.
    Removal of the B-1B program from the DX list does not imply that 
the B-1B is no longer important. As you have described here, the B-1B 
is a versatile weapons system and the backbone of the heavy bomber 
force. Rather, the priority rating was changed to DO because the 
Department determined that a DO rating would be sufficient to meet the 
Department's national defense objectives and the B-1B program's 
schedule requirements.
    If parts constraints surface for the B-1B, or for any other 
program, the Department can, with assistance as needed from the 
Department of Commerce, expedite subcontract or prime contract 
deliveries on a case-by-case basis, even if this requires diverting 
resources from a DX-rated program. Thus, there are processes in place 
that assure the B-1B program continues to have priority access to parts 
and materials.

    Senator Thune. Thank you.
    Mr. Chairman?
    Chairman Levin. Thank you, Senator Thune.
    Senator Sessions.
    Senator Sessions. Mr. Chairman, I yield to Senator 
Chambliss.
    Chairman Levin. Thank you.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    I appreciate the courtesy of my colleague from Alabama.
    Mr. Young, I had intended to start off my line of 
questioning to you a little bit differently than what I'm going 
to, because I thought Senator Graham might be here. Knowing 
that he lives about 15 miles from Clemson University, I was 
going to start off by talking about the Clemson game last week. 
But since he's not here, we'll move on. [Laughter.]
    Mr. Young. Probably better for both of us, Senator.
    Senator Chambliss. Secretary Young, you have been in this 
position, acting, now, for several months. This town is famous 
for the rumors that surface around here from time to time, one 
of which recently has been that there's discussion at the 
Pentagon about the derailing of the multiyear contract for the 
F-22 and the derailing of the proposed bridge money that may be 
available for consideration for the purchase of additional F-
22s. My question to you is; is that rumor true? Is there any 
conversation at the Pentagon relative to derailing the F-22 
multiyear contract or the bridge money?
    Mr. Young. I have not participated or observed any of those 
discussions, certainly not derailing the existing F-22 
multiyear procurement.
    Senator Chambliss. Speaking of multiyears, we have several 
others that are out there. Is there any conversation relative 
to derailing any of the other multiyear contracts for any 
branch of the service?
    Mr. Young. Senator, I'm not aware of that, and I guess 
that's an answer, but I'd be very concerned about discussions 
like that. We enter into multiyear contracts to achieve the 
savings and provide stability.
    Senator Chambliss. Talking about multiyears, I just want to 
confirm the conversation we had yesterday. Give us the benefit 
of your thinking with regard to multiyear contracts, their 
value to the services, as well as their value to the taxpayer.
    Mr. Young. Senator, I am interested in entertaining a 
discussion of multiyear procurements on every program where we 
have good maturity in the program and the potential to save the 
taxpayer dollars. I think any dollar saved for the taxpayer is 
a dollar that we have a chance to either return to the Treasury 
or buy additional capabilities for the warfighter, so we ought 
to look at multiyears in every case. Only where the savings are 
insignificant should we reconsider using a multiyear tool. I 
think we also have to understand that, in some cases, when 
we're buying at low procurement rates, multiyears help ensure 
we don't bring more cost growth to the table, because vendors 
and suppliers at low procurement rates subject the DOD to 
annual adjustments in their prices. So, we can't always 
anticipate what will happen to us if we don't use a multiyear 
to try to give ourselves all the best chance to succeed and 
save the taxpayer money.
    Senator Chambliss. As I told you yesterday, I appreciate 
that attitude, because I think, from a business perspective, 
the multiyear is one of the best tools that we've ever 
exercised, and whether it's the Pentagon or any other Federal 
agency out there, we don't always do a good job of being 
stewards of the taxpayer money. I think it's proven that we do 
save money, and it is a great tool, and we need to use more of 
it down the road.
    Let me move to something that has surfaced recently. I want 
to talk about an issue that was the subject of an article in 
the Washington Post on Monday of this week. It appears that the 
Air Force recommended that Commonwealth Research Institute 
(CRI) hire Charles Riechers so he could provide specific 
technical expertise in the area of acquisition, transformation, 
and fleet modernization. He was hired under an existing 
contract with CRI. The Air Force utilized his services as a 
contractor, rather than a direct consultant, because it was 
faster to get him under a current contract. The slant of the 
Post article is that CRI hired him, but he was performing work 
for the Air Force, rather than CRI. The Air Force says this is 
not inappropriate, and what would have been inappropriate was 
if Mr. Riechers had shared his research findings with CRI, as 
that could give them an unfair advantage in future contract 
competition.
    My questions to you are; why didn't the Air Force simply 
hire Mr. Riechers as a direct consultant? Is it common for DOD 
to hire technical experts under scientific and engineering 
technical assistance contracts? In your view, was there 
anything inappropriate about the Air Force's actions?
    Mr. Young. It is common, I think, for DOD to seek expert 
technical advice under System Engineering Technical Assistance 
(SETA) contracts. In general, we have those contracts. In some 
cases, we have contracts through vehicles like a Navy Seaport, 
where we compete for those services and ask a number of people; 
can they provide this service? We get, hopefully, the best 
price and the best technical value from that service.
    It is unusual, to me, in my understanding of the system, 
that we would go to an open contract and ask that a specific 
person be put on that contract, and whether that contract is 
broadly enough defined to let that person be brought to that 
contract and asked to do work that may or may not have been in 
the original scope of the contract. I think the Air Force would 
have to answer those questions, but there are some unusual 
dimensions to this, and then some that are a normal course of 
business, where the DOD, finding itself with long timelines to 
hire people, uses contracts to get the expertise we need to 
oversee programs.
    Senator Chambliss. Okay. Thank you very much.
    Thanks, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Mr. Young, to follow up a bit on the long-term contracts 
Senator Chambliss asked you about, I have an understanding 
that, many times, in building highways, politicians are asked 
to build 10 highways when they only have enough money for 5. 
But, to make everybody happy, they start 10, and they end up 
costing a lot more per highway than if they had just gone on 
and promptly completed 5. You have Services, you have interest 
groups, you have Members of Congress that want a whole bunch of 
programs started. Do you think it's a valid concern that we 
might do better if we delayed starting some of those projects 
and then moved the ones we decide to move more rapidly, with 
higher numbers of production each year, and then we might 
actually get a better product at a lower cost?
    Mr. Young. Senator, I believe that's absolutely true, and 
the best example I can offer you is, I found myself, in the 
Navy, as Assistant Secretary, signing a paper that I needed to 
sign to proceed with procurement of a training aircraft. 
Because we were buying those aircraft at eight a year, they 
were costing $30 million apiece. The original plan was, I 
think, to buy 14 to 15 a year, at $20 million apiece. So, I had 
that studied, and we paid several hundred million dollars for 
the same airplanes. We really never changed the requirement. 
But, because we didn't demonstrate the very discipline you're 
talking about, we paid several hundred million dollars more for 
no more capability. I would like to have those discussions in 
the DOD.
    Senator Sessions. Thank you.
    Dr. Brook, with regard to actually maintaining control over 
the integrity and the smart spending of taxpayers' dollars, do 
you have that responsibility? Will you use the IG to report to 
you, or is it your basic responsibility just to manage the 
dollars so that they are properly allocated and properly 
accounted for?
    Dr. Brook. Senator, if confirmed, it would be my primary 
responsibility to oversee the development of the budgets and to 
oversee the internal controls that the Navy would have in place 
to manage dollars and be responsible. I, in the past, have 
developed very close relationships with the IG and the audit 
agencies, and have been able to work very closely with them to 
make sure that we're monitoring the financial activities and 
that we're following applicable laws and trying to be as 
responsible as we can.
    Senator Sessions. Within the Services, and in the Navy, in 
particular, who is in charge of overall responsibility of 
ascertaining whether or not programs are being managed well, 
contractors are performing well, and they are held accountable, 
if they do not?
    Dr. Brook. Well, I think it's a shared responsibility among 
the senior leadership of the Navy, depending on the functional 
areas that we're working in.
    Senator Sessions. So, you have the contracting officer, who 
would be the first line of oversight. Is that right?
    Dr. Brook. I'm not an expert in contracting, Senator. That 
sounds reasonable, but I'm not sure.
    Senator Sessions. Well, I think, sometimes we need pretty 
robust independent review. The budget of DOD, I think, 
certainly is not too large, but it's grown substantially. We're 
talking about $450 billion of baseline defense budget, and even 
a percentage of savings can free up money to complete programs 
that we definitely need to complete. So, I'd hope that you will 
understand. I think Congress needs to do a better job of 
monitoring how we do it. I think you'll see that, in the 
future. I hope that each of you will be out there on the front 
line of doing it.
    To follow up, Secretary Young, on Senator Inhofe's 
questions about S&T, in your August report of this year you 
expressed very real concern about S&T and our investment. Have 
you given any thought to what the appropriate number is that we 
need to increase those programs by, how much it would cost us 
to be at the level we ought to be?
    Mr. Young. In the memo, I cited to Secretary Gates that we 
need to look at those metrics. The previous metric has been 3 
percent. We've not achieved that metric. I'm not sure that's 
the right metric. We need to go and look at businesses and even 
investments by other countries, and set a better metric. But, 
lacking that, I offered in that memo a number of investments 
that would have us add approaching a couple of billion dollars 
a year to the S&T budget, which would be near a 20-percent 
increase in that budget. It was targeted to several things that 
I think could pay dividends for the warfighter and the Nation.
    Senator Sessions. Yes, I notice you indicated that it could 
save money. I remember, early in the Bush administration, he 
talked about leaping-ahead technology. In other words, not 
investing in a system that's going to be out of date, but 
leaping to, and perhaps investing in S&T, and being able to 
develop a new paradigm of capability. Is that what you're 
referring to? Can that happen? Are we doing enough in that 
direction?
    Mr. Young. I think both can happen. A number of those ideas 
I offered, at Secretary Gates's request, were tailored to areas 
that are nontraditional, related to the global war on terror 
and other things, and then some of the areas are places where 
we could have breakthrough technology that would develop a new 
material that can let us move away from, say, MRAPs that weigh 
30,000 to 80,000 pounds, and potentially develop a lighter 
vehicle that's more mobile and tactically useful. We have to 
make those investments in a next generation of materials, and, 
as you've said, leap ahead of what we're buying today.
    Senator Sessions. With regard to the LCS, I chaired the 
Seapower Subcommittee in 1997, and during that time we began to 
analyze how the new Navy would be configured. As I understand 
it, 55 of these ships are to be completed, which would 
represent about a sixth of the Navy's 300-plus fleet. The Chief 
of Naval Operations (CNO) and others have made clear to us they 
consider this a critical program that will just be an 
absolutely necessary component of the Navy fleet. Some of the 
cost increases have gone because the Navy has asked for and 
obtained militarization of a ship that was originally thought 
to be a commercial-type ship. Anyway, my question to you is; do 
you believe this is a critical part of the Navy's fleet and 
that this program needs to be maintained, with costs kept at a 
minimum, and produced in a way that meets the Navy's needs, and 
respects the taxpayers' investment?
    Mr. Young. Senator, I believe I can legitimately claim to 
be an original plank-owner on LCS, and I believe firmly and 
strongly in the need for that capability in the Navy. I'm 
disappointed about the costs, and we need to go attack that and 
see if we can do better. But we have to have that class of ship 
in the naval fleet.
    Senator Sessions. It also saves money off personnel, as I 
understand. Can you explain what this fast, mobile, shallow-
water vessel's capabilities are, and the number of personnel it 
takes to operate it, compared to other ships?
    Mr. Young. I think, Senator, it may be best pointed out by 
an example that motivated me. Ahead of the Operation Iraqi 
Freedom, we conducted approaching 1,000 boardings in the Gulf 
waters of small dowels and other vessels. We were doing that 
with destroyers, DDG-51s, that cost over $1 billion and have 
crews of 350. Then, in some cases, that ship still has a speed 
limit that won't let it run down adversaries who quickly move 
to faster ships. LCS will let you run down that adversary with 
a ship that doesn't cost $1 billion and with a crew that's more 
like 50 people. It provides the capability and the opportunity 
to save money, as you've said, and put fewer crew members at 
risk. There are multiple dimensions to the benefits of LCS.
    Senator Sessions. Well, I think so. I'm sorry we've had 
some difficulties with that. I hope that you will keep it on 
track and meet the challenges and the legitimate questions that 
are raised.
    Mr. Chairman, just briefly, a consistent concern we've 
heard from service chiefs is that Goldwater-Nichols does not 
sufficiently allow them to participate in the acquisition 
process. In other words, civilian personnel is involved in 
that. I note that Admiral Roughead recently stated his view 
that we need to ``enhance the coordination and interaction 
between those who define our requirements and those who acquire 
the systems.''
    First, I want to register that as a legitimate concern, 
and, second, ask you if you'd briefly comment on it.
    Mr. Young. Senator, I believe strongly in the enormous 
wisdom that's embodied in Goldwater-Nichols and the importance 
of having an acquisition team that has a line, through people 
like me, to the President, and then a requirements team that 
has a line also to the President, but through a military 
advisory team, and then those teams working together. In my 
time in the Navy, I had Saturday sessions with then CNO Vern 
Clark, to set those requirements bars on LCS and say, ``If you 
want to go this fast, it potentially will cost this much.'' We 
need to work with them, and did, in my time in the Navy, on 
what it would cost, how long it would take, and whether the 
requirements bar needs to be that high. That acquisition team 
needs to be able to push, sometimes, on those requirements on 
behalf of the taxpayer and the President, as we did on DD(X), 
when we took the firing rate from 12 rounds a minute, which was 
a very costly gun and loading system, to 10 rounds a minute. 
That small change made a big difference in cost. I need the 
acquisition team to make those pushes. I need the requirements 
team to stand their ground where it makes a military 
difference, and get to a middle ground that's effective for 
delivery.
    Chairman Levin. Thank you, Senator Sessions.
    I want to go back to this contract that CRI had with the 
Air Force that was used, apparently, to pay the civilian 
contracting official $13,000-plus a month for that 2-month 
period. I have trouble with your answer on that. It seems to me 
it's just totally out of place for a company to be paying 
someone for work that that person is not performing for that 
company, to begin with. Whether or not that person is 
performing work for the government or not is a different issue. 
I'm not sure of that. There's been some statements made that he 
was performing useful work. Here we had some Air Force official 
telling a contractor to pay somebody $13,400 a month for work 
not being performed for that company. It seems to me that is 
unsustainable, that's wrong. Would you agree with that?
    Mr. Young. Yes, I'm troubled with those dimensions of it, 
sir.
    Chairman Levin. There's also, I believe, that a company 
would be given a fee, an administrative fee for its operations, 
and that they would make money from that contract as well. 
Would that likely be the case?
    Mr. Young. I think, in virtually every case that is 
correct. I think you're extremely familiar with the article. 
This article cites that this company is a not-for-profit, so I 
would have to ask the Air Force to understand whether there was 
a fee-bearing portion of those costs.
    Chairman Levin. It may be not-for-profit, but it's making 
money on the contract.
    Mr. Young. Yes, sir.
    Chairman Levin. The administrative charges, overhead 
charges----
    Mr. Young. In virtually every case, there are those 
charges, absolutely.
    Chairman Levin. Whether or not this is really a nonprofit 
is another issue.
    Mr. Young. Right.
    Chairman Levin. That's an Internal Revenue Service (IRS) 
issue. They can figure that out, even though some of the amount 
of money which is going to the people who are working for that 
nonprofit are pretty stunning amounts, whether it qualifies or 
not is an IRS issue.
    But I have trouble with the Air Force doing this. I think 
it makes you ask; what is going on in contracting world, where 
that is done? I'm wondering if you can get into this question 
for us. After you're confirmed, which hopefully you will be, 
very promptly, can you check into this contract and tell us 
what happened? Is anyone held accountable if something wrong 
was done here? Are there any rules against this kind of thing; 
paying people for work they didn't perform for the entity that 
is paying the person? Where is the accountability if that takes 
place, and how common or frequent is this occurrence? It 
reminds me a little bit of what we call offloading, where one 
agency is using another agency's contract, when there's just a 
lack of accountability in it. So, if you could get back to this 
committee on that matter, and tell us; is it unusual, is it 
common, and what action is being taken, if action is 
appropriate? To me, it tells me that there's something amiss in 
the world of contracting that this kind of a activity can take 
place. Okay?
    Mr. Young. I'd be happy to look at it in detail, and I'd 
like to get your views of those facts when we get them to you, 
sir.
    Chairman Levin. All right, I'd like your views. We're happy 
to give you our views, but I'd like your views about it, as 
well, when you submit them to us.
    Mr. Young. Yes, sir.
    [The information referred to follows:]

    Mr. Chairman, Air Force officials have provided the following 
summary of the facts, circumstances and legal aspects of this contract.
    The Assistant Secretary of the Air Force (Acquisition) had a 
requirement for scientific and engineering expertise. The Office of the 
Administrative Assistant to the Secretary of the Air Force had an open 
task order under an existing contract under which Commonwealth Research 
Institute (CRI) was to provide the Air Force with technical expertise. 
Mr. Riechers was well qualified to provide these services, and CRI 
hired him to do so. Mr. Riechers provided scientific and engineering 
technical assistance services to the Air Force and made recommendations 
that were instrumental in engineering our acquisition transformation 
and continuing the Air Force's modernization of our aging fleet. The 
work Mr. Riechers performed was in accordance with the contract 
Statement of Work with CRI. CRI management was responsible for the 
overall direction and control of Mr. Riechers' performance.
    For Economy Act transactions, it is not unusual for agencies to 
acquire supplies or services through another Federal Agency. The basic 
contract was issued by the Department of the Interior Southwest 
Acquisition Branch on behalf of the Air Force, Directorate of Security 
Counterintelligence and Special Programs Oversight (SAF/AAZ). The scope 
of work includes performance of independent technical studies and 
analyses; conduct of site surveys and field data collection; and 
evaluation of initiatives, exercise support, and systems 
demonstrations. The Economy Act (31 U.S.C. 1535) is applicable to 
orders placed under this contract. The Economy Act permits ordering of 
supplies and services through another Federal Agency when a more 
specific statutory authority does not exist, there is no current 
contracting vehicle for the acquisition, and it is more economical to 
have another agency perform the contracting. (Note: FAR 17.501 defines 
an ``interagency acquisition'' as ``a procedure by which an agency 
needing supplies or services (the requesting agency) obtains them from 
another agency (the servicing agency).'')
    Based on the facts known to us at this time, the Air Force believes 
that the authorization of the action that occurred was not prohibited 
by law, regulation, or policy, nor was there a need for a deviation or 
waiver to support any of these efforts. However, I cannot tell you that 
I am comfortable with all aspects of this contracting action.
    To further examine whether such events may have constituted an 
impropriety, the Administrative Assistant to the Secretary of the Air 
Force requested an independent investigation by the Department of 
Defense Inspector General. I believe we should get the results of this 
investigation to fully inform our review of this matter.

    Chairman Levin. A question for you, General, if I have a 
moment left in my time. There's been some criticism of the 
approach that the NNSA has taken so far to efforts to modernize 
and reduce the size of the nuclear weapons complex. Much of the 
criticisms revolved around the fact that the NNSA is not 
closing and consolidating any of the production sites. As the 
modernization process moves forward, will you look carefully at 
opportunities to close and consolidate production sites, if 
appropriate?
    General Smolen. Absolutely.
    Chairman Levin. All right. On the reliable replacement 
warhead, you made reference to this, but the question now is, 
at NNSA, as to whether they're going to be able to manage the 
life extension program for nuclear weapons so that it's not cut 
short in anticipation of any decision with respect to the 
reliable replacement warhead. On the other hand, life extension 
program should not be rushed to avoid the reliable replacement 
warhead decision. What will you do to make sure that there's a 
balancing of the research on the reliable replacement warhead 
with the carrying out of the life extension program?
    General Smolen. Sir, I believe the reliable replacement 
warhead provides great promise for the future as an alternative 
for us. We still need to do some study before we can make final 
determinations on how effective that will be. In the absence of 
knowing that, we certainly must proceed with the life extension 
programs to continue to maintain the stockpile as credibly as 
we possibly can.
    With regard to the facilities, I will absolutely take a 
close look at all of our facilities. There have been numerous 
studies, sir, and I have been reviewing those studies, and I 
hope to confer with colleagues, if confirmed, to understand all 
of that much better. I think there may in fact be good 
opportunity for consolidation, but at this time I still need to 
know much more about what our options are before I could commit 
to any specific actions.
    Chairman Levin. Thank you.
    Senator McCaskill.
    Senator McCaskill. At the risk of beating a dead horse, I 
want to go back, also, to the contracting question. Since this 
is, now, the Deputy Assistant Secretary for Acquisitions in the 
Air Force, this is someone whose job is all about 
accountability. I'm concerned, first of all, I think, at first 
blush, it potentially is an Antideficiency Act (ADA) violation. 
The reason I say it could be an ADA violation is that section 
1342 of the ADA says government employees can't accept 
voluntary services. Well, if the government was getting the 
benefit of his research for those 2 months, and the government 
wasn't paying for it, then wasn't that voluntary? Wasn't he 
providing a work product? He wasn't doing the work product for 
his employer. He had no contact with his employer during those 
2 months. He was working for the government during those 2 
months, not for his employer. I think there's a real question 
here as to whether or not the law was violated, whether or not 
there was a felony committed by the Deputy Secretary for 
Acquisition or by the DOD and by this person who provided work 
to the government on a voluntary basis, even though his 
employer was not asking for that work. All the employer was 
doing was paying him.
    Now, that's one concern I have. The second concern I have 
is; what in the world are we giving CRI $26,000 for what they 
don't need? What are we contracting with them for? I mean, if 
they have $26,000 sitting around that they can pay to anybody 
that the Pentagon asks them to pay, do they have more money 
over there they're not using? Maybe we should ask them to 
continue paying his salary as the Deputy Acquisition Director 
for the Navy, if they have all this money sitting there. What 
in the world are we giving them money for? Then, there's a 
whole other level that is really troubling to me. Why are they 
even called a not-for-profit? What is the not-for-profit? If 
you read this article, and their excuses they use for being a 
not-for-profit, I mean, have we no shame? I mean, we are 
shoveling money at some of these people through the 
appropriations processes like it's Monopoly money.
    I think that what happened here was, it was easier to get 
this guy's check covered for a couple of months from a friendly 
contractor than go through the process you have to go through 
to get him on the payroll at the Pentagon. So, we wanted to do 
it quickly, so call a friendly contractor and let them write 
the check for a couple of months. Isn't that exactly what the 
ADA is supposed to prevent: giving a contractor an advantage at 
the Pentagon by virtue of voluntary services?
    Now, I know that's the legislative intent of that provision 
of ADA. Whether or not you can fit this factual scenario firmly 
within that prohibition under the law, but what worries me is 
that no one seems to be really concerned about this, which 
makes me think, as the chairman said, this may be very 
commonplace.
    Which leads me to my question on ADA and for my comptroller 
friend. I have looked into ADA violations, and the record here 
is very, very sparse. We've tried to get the information, from 
DOD, how many ADAs have resulted in punishment. Now, if you 
look at the kind of money that's being spent, and where it's 
being spent, in fiscal year 2006 we've been able to determine, 
with the number of potential cases only being 58, the number of 
ADAs that resulted in punishment was 9. In fiscal year 2005, 
there were seven. As of January 2007, there were only three. 
Frankly, there were only 12, in terms of potential cases. Well, 
I think this article outlines another potential case, and I 
think that there are probably many, many other potential cases. 
In your future position, I would like your commentary on what 
we can do to instill a more aggressive attitude about the ADA 
and what it is intended to accomplish. It's hard for me to 
believe that there are few violations that are occurring. As I 
looked into the process, I found it's incredibly byzantine. 
With how long it takes and the investigation and they basically 
say ``no harm, no foul,'' if the person has moved on. So, all 
you have to do to really avoid ultimate punishment under this 
is just go away. You can imagine, if we did that with all the 
laws in the country that were felonies, if everyone just agreed 
to change their job, no harm. I think we're going to have to 
get a lot more serious about this if we want to change some of 
the attitude there. So, I would like your comments about the 
ADA and its enforcement.
    Dr. Brook. Senator, I've never seen much data on the ADA, 
either, so I don't know what the number of total cases are or 
what the percentages of punishment are or what the different 
levels of punishment might be. But I take your larger point 
very seriously. I think accountability is critical in the 
financial management area, and that's why the ADA was enacted. 
I certainly take your comments to heart. I share your concern 
about accountability, and it'll be a very important aspect of 
my leadership, if confirmed.
    Senator McCaskill. Let me, finally, if I could, just one 
more question, Mr. Chairman.
    I don't know, Mr. Young, what you can do, and maybe we 
could have a conversation about this later, but I would like 
your reflection upon how do we instill, in military training, 
some kind of sense of responsibility for oversight on 
contracting? What happened in Iraq was a function of us trying 
to do more with fewer people. So, we took contracting to an 
unprecedented level in every area. The military commanders are 
quick to admit they wanted to make sure the ice cream was in 
the mess hall, they wanted to make sure the latrines were 
cleaned, they wanted to make sure the supplies moved. They 
really didn't care what it was costing, in a global sense. I 
don't mean to say they're not patriotic people that want to 
support their country; of course they are. But that was not 
their concern. Their concern was the mission. If you look at 
the individuals who are tasked with overseeing these contracts 
within each unit, these contracting officer representatives are 
not trained. It was almost like you get the short straw, that 
you're overlooking the contract.
    I would appreciate you and Secretary Gates, to the extent 
that you could have a conversation with him about this, talk 
about what we need to do, in terms of training, because we're 
not going to go backwards, I can't believe, because we don't 
have the ground strength to do it. If we ever have another 
contingency like this, and if we are ever in another conflict 
like this, I think we're going to continue to contract. Now, 
the problem is, we can't ever contract like this again. So, my 
sense is that no one is really excited about the idea that we 
start embedding training in the military about how you monitor 
a contract. Do you have any comment on that?
    Mr. Young. Absolutely, Senator. One, I want to assure you 
that this is very high on Secretary Gates's list, near the top 
of Secretary England's list. I participated in a meeting with 
him on this issue yesterday. I participated earlier this week 
in a meeting with Secretary Geren, the Army Secretary, on this. 
I do think you'll see the Army seek to move some steps back. 
We're trying to understand the issue. But what's changed is 
what I think you've highlighted. As we move very hard to make 
sure the military people who are at the pointy end of the 
spear, there was a loss of focus on the fact that, when the 
spear is deployed, there has to be certain support and certain 
abilities to oversee that support; contingency contracting and 
contingency contracting oversight. The recent issues are going 
to refocus the DOD's attention at the most senior levels, 
including mine, on this issue. I believe it will include 
training, it will probably include people, and it'll include 
changes to our processes.
    Senator McCaskill. Thank you.
    Chairman Levin. Thank you.
    Let me commend you, Senator McCaskill. The provision which 
you and Senator Carper authored, which is in the bill, which 
will require training for these nonacquisition people who are 
doing contracting work in a deployed environment, will 
hopefully survive conference. You, again, will be an active 
part of that conference, but we want to commend you for that 
effort, which is something which can then be implemented by the 
DOD, because it does raise an important issue.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman, for this 
hearing. I think these are three able persons. You've conducted 
a fair and complete hearing. I thank you, and I have no further 
questions.
    Chairman Levin. Thank you.
    Are you all set, Senator McCaskill?
    Senator McCaskill. In writing, if you would, I would like 
your comments, Mr. Young, on the effectiveness of the Joint 
Requirements Oversight Council (JROC). You do not have a seat 
on that council, and, of course, you know that the undercurrent 
is, there's a lot of backscratching by the various branches, 
``I won't mess with your program if you don't mess with mine.'' 
Should you have a seat on that Council? Should there be someone 
watching to make sure that the Army's saying, ``Okay, I won't 
complain about that if you promise you won't complain about 
what I want to get through the JROC.'' If you believe you 
should have a seat on that Council in your position that I'm 
confident you'll be confirmed for, whether or not that might 
have a cleansing effect, at least on the perception that might 
be out there. I'm not sure it's a reality, as I say, but 
certainly it's a perception that there may be some 
backscratching going on.
    Mr. Young. Senator, I'd welcome the chance to talk to you 
about my experienced reality.
    Senator McCaskill. Okay, great. I like that kind of 
reality.
    Thank you, Mr. Chairman.
    [The information referred to follows:]

    The Joint Requirements Oversight Council (JROC) was created as the 
governing body of military expertise on the Joint Staff and is 
chartered to provide independent, military advice and recommendations 
to the Secretary of Defense and the President in validating military 
requirements. With this as its primary function, the JROC seeks advice 
from representatives across the Department of Defense (DOD). The JROC 
charter was recently amended to include both the Under Secretary of 
Defense for Acquisition, Technology & Logistics (USD(AT&L)) and the 
Under Secretary of Defense Comptroller (USD(C)) as advisors.
    Section 944 proposed by the House for the National Defense 
Authorization Act for Fiscal Year 2008 would make the USD(AT&L) and the 
USD(C) permanent voting members of the JROC. While the JROC relies upon 
the advice of these important civilian leaders, codifying the role of 
these civilian leaders as permanent voting members may run counter to 
the JROC's principal purpose of providing independent military advice 
regarding the validation of warfighter requirements.
    I believe it is most critical for the DOD and Service Acquisition 
Executives, as the President's representatives and stewards of tax 
dollars, to constantly question requirements in light of technology 
maturity, cost, and alternate material or operational tactic solutions. 
Further, the entire acquisition team should constantly identify and 
push for joint solutions in every situation, including when unique 
service requirements exist.

    Chairman Levin. Before closing, let me, again, thank you 
for your commitment to this Nation, to your families and 
friends and colleagues who have come here to support you, 
particularly, Mr. Young, to your children, who have not only 
shown support for you through your career, but who have made an 
amazing effort here to look interested throughout this hearing. 
[Laughter.]
    That really takes talent. I never could do that.
    We thank you all, and we will move these nominations as 
quickly as we possibly can.
    We will stand adjourned.
    [Whereupon, at 11:13 a.m., the committee adjourned.]

    [Prepared questions submitted to John J. Young, Jr., by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense (DOD) 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I do not see a need for modifications of Goldwater-Nichols 
in the areas affecting acquisition. The civilian and military roles 
defined in the act produce a healthy tension that balances warfighting 
needs with taxpayer interests. I believe proposals to change this 
aspect of Goldwater-Nichols by shifting acquisition to the Service 
Chiefs would be a disservice to the President and our Nation's 
taxpayers. The debate over requirements, technology, cost, and 
capability should begin at levels below the President and the Secretary 
of Defense. There is great risk in such a change of even further 
overstating of requirements, growing unfunded requirements lists, and 
further escalation in the cost of weapon systems.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Based on my experience as the Director of Defense Research 
and Engineering (DDR&E) and Department of the Navy Acquisition 
Executive, I continue to oppose any modifications that would shift 
acquisition program management to the Service Chiefs. For the sake of 
the taxpayer, there needs to be a constant debate at all working levels 
between the acquisition team--led by Presidential appointees--and the 
requirements community--led by the Service Chiefs and the Joint Staff. 
The debate should encompass available technology, cost, affordability, 
delivered capability, joint options, and alternative solutions.

                                 DUTIES

    Question. Twenty years ago, Congress established the position of 
Under Secretary of Defense for Acquisition in response to the 
recommendations of the Packard Commission. The Packard Commission 
report stated: ``This new Under Secretary . . . should be the Defense 
Acquisition Executive. As such, he should supervise the performance of 
the entire acquisition system and set overall policy for R&D, 
procurement, logistics, and testing. He should have the responsibility 
to determine that new programs are thoroughly researched, that military 
requirements are verified, and that realistic cost estimates are made 
before the start of full-scale development. (In general, we believe, 
cost estimates should include the cost of operating and maintaining a 
system through its life.) He should assure that an appropriate type of 
procurement is employed, and that adequate operational testing is done 
before the start of high-rate production. He also should be responsible 
for determining the continuing adequacy of the defense industrial 
base.''
    Question. Do you believe that the position of Under Secretary of 
Defense for Acquisition, Technology, and Logistics (USD(AT&L)) has the 
duties and authorities necessary to carry out the recommendations of 
the Packard Commission?
    Answer. Yes.
    Question. Do you see the need for modifications in the duties and 
authorities of the USD(AT&L)?
    Answer. No.
    Question. Do you believe that the DOD has effectively implemented a 
streamlined chain of command for acquisition programs, as envisioned by 
the Packard Commission?
    Answer. I believe that the Department has implemented acquisition 
chains of command that provide the best management structure to meet 
current acquisition requirements. If confirmed, I will continue to 
examine these acquisition structures to improve outcomes and streamline 
oversight.
    Question. Do you see the need for modifications in that chain of 
command, or in the duties and authorities of any of the officials in 
that chain of command?
    Answer. At the present time, I do not see any need for 
modifications in the chain of command or in duties and authorities, but 
modifications could be needed in the future as acquisition mission 
requirements evolve. I believe the statutory reporting chain which 
provides USD(AT&L) directive authority for Service acquisition programs 
via the Service Secretaries is a critical authority which must be 
maintained. If confirmed, I will continue to evaluate the current 
chains of command and recommend adjustments, if needed.
    Question. Section 133 of title 10, U.S.C., describes the duties of 
the USD(AT&L).
    Assuming you are confirmed, what duties do you expect that 
Secretary Gates will prescribe for you?
    Answer. If confirmed, I expect the Secretary to assign me duties 
and functions commensurate with the USD(AT&L) position, and any others 
he may deem appropriate.
    Question. Do you recommend any changes to the provisions of section 
133 of title 10, U.S.C., with respect to the duties of the USD(AT&L)?
    Answer. No.
    Question. If confirmed, what duties and responsibilities would you 
plan to assign to the Deputy Under Secretary of Defense (DUSD) for 
Acquisition and Technology and the DUSD for Logistics?
    Answer. Based on my experience working with both positions, I do 
not, at this time, see an urgent need for any major changes in the 
roles and responsibilities of the DUSD for Acquisition and Technology 
or the DUSD for Logistics and Material Readiness. At this time, the 
duties assigned to each position serve an important role to meeting the 
goals and objectives of the Secretary of Defense. I do believe that the 
DDR&E should serve as the Department's principal staff assistant for 
technology matters and the DUSD for Acquisition and Technology should 
be the principal staff assistant for acquisition program management.
    Question. In your view, should the USD(AT&L) be a member of the 
Joint Requirements Oversight Committee (JROC)?
    Answer. The JROC membership may be appropriate. The USD(AT&L) must 
at least participate in a full advisory role.

                             QUALIFICATIONS

    Question. If confirmed, you will be responsible for managing an 
acquisition system pursuant to which the DOD spends more than $200 
billion each year. Section 133 of title 10, U.S.C., provides for the 
Under Secretary to be appointed from among persons who have an 
extensive management background in the private sector.
    What background and experience do you have that you believe 
qualifies you for this position?
    Answer. I believe that my responsibilities and service as the DDR&E 
and the Assistant Secretary of the Navy for Research, Development, and 
Acquisition provide substantial and unique background and experience 
that qualifies me for this position. Further, my experience as a 
professional staff member on the Senate Appropriations Defense 
Subcommittee and my experience working in a variety of positions in 
industry provides me with a strong and extensive background for this 
position.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the USD(AT&L)?
    Answer. As the DDR&E, I established a vision for the organization 
of developing the technology to defeat any adversary on any 
battlefield. I believe this vision, expanded to recognize including 
acquisition and sustainment, to a high degree also outlines the 
challenges I would face as USD(AT&L). We must ensure the Nation has the 
technology, systems, training and support necessary to defeat 
adversaries on every front--urban warfare to cyberspace. We must be 
efficient with the nation's tax dollars in order to give the warfighter 
the largest possible set of robust warfighting tools. The acquisition 
team must ensure the tools are interoperable and joint and must execute 
programs with speed and creativity. We have already seen the pace of 
adjustment of our adversaries in the Global War on Terrorism. If 
confirmed as the USD(AT&L), my challenge will be to oversee and 
integrate the research, development, procurement, logistics, and 
facilities functions within the available resources in order to ensure 
the Nation maintains unmatched military capability. If confirmed, I 
believe some of the more specific challenges I would confront include:

        <bullet> Improving the effectiveness, credibility, and 
        performance of the Defense Acquisition Team in every 
        acquisition business area.
        <bullet> Making proactive, clear progress in controlling cost 
        and requirements in order to deliver program results within 
        budget and schedule.
        <bullet> Ensuring the acquisition process is transparent, 
        objective, timely, and accountable.
        <bullet> Forging consensus among the acquisition, requirements, 
        and budget communities to enable effective acquisition.
        <bullet> Fostering a science and technology (S&T) program that 
        meets the Nation's future defense needs.
        <bullet> Implementing logistical and supply chain management 
        initiatives which are effective for the warfighter and the 
        defense enterprise.
        <bullet> Addressing industrial base challenges in an 
        increasingly globalized commercial marketplace.
        <bullet> Building and sustaining a high performing, agile, and 
        ethical defense acquisition workforce.
        <bullet> Ensuring business transformation efforts support sound 
        program decisions and financial management.

    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If I am confirmed, I expect to draw on my previous 
experiences as well as the advice and counsel of all members of the 
defense acquisition team in order to develop and implement a number of 
initiatives to address these challenges. If confirmed, I also will seek 
to work closely with the Services, agencies, and Congress to develop 
and execute plans and initiatives that will make tangible progress on 
these challenges.

                    MAJOR WEAPON SYSTEM ACQUISITION

    Question. Please describe the approach taken by the Department to 
reduce cycle time for major acquisition programs. Do you believe the 
Department's approach has been successful?
    Answer. I believe that the fundamental step in the DOD's efforts is 
the requirement for appropriate Technology Readiness Levels (TRLs) at 
key milestones as mandated by Congress. Ensuring that we move 
appropriately mature technology into successive stages of program 
development is fundamental to controlling and reducing cycle times for 
major acquisition programs.
    The Department has also undertaken additional steps to control and 
reduce cycle times. Key additional steps include efforts to stabilize 
program funding and requirements in order to permit planned, deliberate 
program execution. Additional supporting initiatives or pilot projects 
include concept decision, Defense Acquisition Executive Summary (DAES) 
re-engineering and Performance Based Logistics. If confirmed, I will 
work to build on these foundations to seek continued improvement.
    Question. What specific steps has the DOD taken to adopt 
incremental or phased acquisition approaches, such as spiral 
development?
    Answer. Incremental and Spiral acquisition strategies are being 
utilized in the Department. These approaches are defined in DOD 5000.2, 
are embedded in the Defense Acquisition University training for Program 
Management, Systems Engineering and Contracting and are utilized by all 
Services.
    Question. How will the requirements process, budget process, and 
testing regime change to accommodate spiral development?
    Answer. Spiral development is an acquisition strategy and approach 
that is designed to identify the end-state requirements, which are not 
known at program initiation. Requirements, budget and test regime are 
refined through demonstration and risk management.
    Question. How should the Department ensure that the incremental or 
phased acquisition programs have appropriate baselines against which to 
measure performance?
    Answer. Each program being executed under an incremental or phased 
acquisition approach must still have clear requirements and metrics for 
each phase or increment. There are two key elements of success. First, 
the requirements of the initial increments must be commensurate with 
the budget, schedule and technology available to the program. Second, 
the Department must be able to adjust the requirements, shifting some 
requirements to later phases or increments, in order to ensure 
execution within budget and schedule.
    Question. Over the last several years, the Government 
Accountability Office (GAO) has prepared a series of reports for this 
committee comparing the DOD approach to the acquisition of major 
systems with the approach taken by best performers in the private 
sector. GAO's principal conclusion has been that private sector 
programs are more successful, in large part because they consistently 
require a high level of maturity for new technologies before such 
technologies are incorporated into product development programs. The 
Department has responded to these findings by adopting technological 
maturity goals in its acquisition policies.
    How important is it, in your view, for the Department to mature its 
technologies with research and development (R&D) funds before these 
technologies are incorporated into product development programs?
    Answer. I believe it is absolutely necessary for the Department to 
appropriately mature technologies before they are incorporated into 
product development programs. Experience demonstrates that programs 
built on mature technologies are much more likely to meet cost, 
schedule, and functional objectives. DOD R&D funds are an important, 
and often the primary, method for maturing technologies.
    Question. What steps would you take, if confirmed, to ensure that 
the key components and technologies to be incorporated into major 
acquisition programs meet the Department's technological maturity 
goals?
    Answer. Ensuring incorporation of mature technologies (e.g., TRL 6 
at MS B, TRL 7 at MS C) into Major Defense Acquisition programs 
requires a sustained approach that engages early with the program's 
capabilities development and stays engaged through system design and 
development (SDD). During my tenure as DDR&E, I have strongly 
encouraged the Department's S&T staff to work closely with major 
acquisition programs well before Milestone decision points to ensure 
that technology immaturity issues are identified, and that technology 
maturation plans are developed. If confirmed, I would continue this 
practice through technology readiness assessments and quick-look 
technology maturity evaluations to ensure that key components and 
technologies satisfy technological maturity goals. If confirmed, I 
expect to work to ensure that appropriate investments are made to 
mature technology to support each stage of development.
    Question. What steps do you believe the Department should take to 
ensure that research programs are sufficiently funded to reduce 
technical risk in programs so that technological maturity can be 
demonstrated at the appropriate time?
    Answer. The DOD must adequately fund technology maturation for the 
technologies necessary for our military systems. The Department has 
many opportunities to leverage the research investments of other 
Federal agencies and the commercial sector (including international 
developments) to advance technological maturity. However, the final 
result must be proven, appropriate stages of technical maturity for 
advancement to the next stages of development.
    Question. What role do you believe TRLs and Manufacturing Readiness 
Levels (MRLs) should play in the Department's efforts to enhance 
effective technology transition and reduce cost and risk in acquisition 
programs?
    Answer. TRLs have proven to be a very effective tool for focusing 
Department attention and effort on technology maturation, and if 
confirmed, I will continue to use them. MRLs are an emerging tool to 
support acquisition decision making that shows promise. The DDR&E team 
has worked with industry to develop MRLs that are reconciled with TRLs 
and to provide a common framework for assessing and managing 
manufacturing risk from technology development through each step of 
acquisition.
    Question. The committee has proposed various changes to DOD 
acquisition procedures that are included in title VIII of S. 1547, the 
National Defense Authorization Act for Fiscal Year 2008. Sections 801 
through 805 would address major defense acquisition programs.
    What is your opinion about whether these provisions, if enacted, 
would help the Department reform how it buys its largest and most 
expensive weapons systems?
    Answer. If confirmed, I will review each of the sections addressing 
changes for multi-year procurement, Milestone B certification, DOD 
organization and structure, investment strategy and report on total 
ownership cost.
    Question. Which of these provisions, if any, do you have concerns 
about and why?
    Answer. Consistent with the Statement of Administration Policy 
regarding S. 1547, I am concerned that section 801(a) would define 
``substantial savings'' for multiyear contracts. This definition would 
unnecessarily limit the contracting options available for large 
programs where significant taxpayer dollars could be saved.

                 DEFENSE ACQUISITION REFORM INITIATIVES

    Question. In February 2007 the Secretary of Defense submitted a 
report to Congress entitled ``Defense Acquisition Transformation Report 
to Congress''.
    If confirmed, to what extent would you support and continue 
implementation of the defense acquisition reform initiatives forth in 
that report?
    Answer. In general, I support the majority of the acquisition 
reform initiatives identified in the Report. If confirmed, I will 
support the implementation activities which are already underway and 
evaluate additional ways and means to improve the effectiveness and 
efficiency of the system.
    Question. In particular, please discuss your views about the 
following:
    Portfolio Management.
    Answer. In general, I would support the Capability Portfolio 
Management Initiative pilot that provides a common framework 
recognizing federated ownership. It facilitates strategic choices and 
improves the ability to make capability trade-offs. Successful 
experiments in portfolio management are impacting strategic portfolios, 
weapon systems, and weapon sustainment choices.
    Question. Tri-Chair Concept Decision.
    Answer. In general, I believe forums like the Tri-Chair and 
processes like Concept Decision are very useful for the alignment of 
the acquisition, requirements and resource teams in pursuit of a common 
capability goal. I used similar tools and processes during my tenure in 
the Navy in order to achieve alignment on a number of major acquisition 
programs. If confirmed, I will review this initiative and the 
associated pilots for any additional support or direction needed.
    Question. Time-Defined Acquisitions.
    Answer. In general, I support the Time-Defined Acquisition (TDA) 
initiative which is designed to make schedule a key performance 
parameter. The TDA approach seeks to prescribe a fixed time for 
capability delivery and to use schedule to drive the program's focus, 
plans and technology choices. If confirmed, I will review this 
initiative for any additional support or direction needed.
    Question. Investment Balance Reviews.
    Answer. In general, I support the Investment Balance Reviews (IBR) 
initiative that provides the Defense Acquisition Executive with the 
opportunity to make course corrections during the life cycle of the 
portfolio of capabilities, systems and programs. If confirmed, I will 
review this initiative for any additional support or direction needed.
    Question. Risk-Based Source Selection.
    Answer. In general, I support this initiative to provide an 
informed basis for assessing industry proposals, quantifying the risk 
in terms of cost and time, and providing the basis for more informed 
discussions with the offerers. If confirmed, I will review this 
initiative for any additional support or direction needed.
    Question. Acquisition of Services Policy.
    Answer. In general, I support the initiative on Acquisition of 
Services which is designed to reduce cycle time, increase competition 
and provide better value for the Department. If confirmed, I will 
review this initiative for any additional support or direction needed.
    Question. Systems Engineering Excellence.
    Answer. In general, I support this initiative which is designed to 
strengthen our Systems and Software Engineering acquisition policy and 
practices with a goal of world class performance for the Department. If 
confirmed, I will review this initiative for any additional support or 
direction needed.
    Question. Award Fee and Incentive Policy.
    Answer. During my tenure as the Navy Acquisition Executive, I 
issued three memorandums providing policy and guidance on the use of 
profit, incentives and award fees. These memoranda specifically pushed 
for greater use of objective criteria for awarding fees, aligning the 
payment of fees to measurable steps on the critical path through 
development, and tailoring the profile for the award of fees to stages 
of progress in development. I strongly believe the DOD must continue to 
use fees as a vital tool in managing acquisition programs and 
incentivizing performance. If confirmed, I expect to continue to push 
for progress in the careful and judicious use of profit and fees.
    Question. Open, Transparent, and Common Shared Data Resources with 
Defense Acquisition Management Information Retrieval (DAMIR).
    Answer. The Department needs better information tools for use in 
managing its portfolio of programs and in monitoring progress in 
program execution. The DAMIR system represents an effort to fill some 
of these gaps. If confirmed, I will review this initiative for any 
additional support or direction needed.
    Question. Restructured DAES Reviews.
    Answer. The DAES reviews provide a forum for the Office of the 
Secretary of Defense (OSD) to work with the Services and Agencies to 
evaluate progress in program execution. Recent adjustments in the DAES 
review process have sought to improve the quality of information and to 
focus on the key metrics which provide insight into program execution. 
These steps are useful, and the Department should continue to make 
every effort to ensure program execution is carefully measured and 
monitored to provide early signals of the need to take action and make 
adjustments which can improve the probability of successful program 
execution. In general, I support this initiative which is designed to 
improve decision making, communication, trust and integrity between 
OSD, the Joint Staff and the Services. If confirmed, I will review this 
initiative for any additional support or direction.
    Question. Policy on Excessive Pass-Through Charges.
    Answer. If confirmed, I will review the interim policy issued April 
26, 2007 as well as public comments in preparation for finalization of 
a responsive policy.
    Question. Are there other initiatives or tools discussed in the 
Defense Acquisition Transformation Report that you view as particularly 
likely, or unlikely, to be productive in achieving acquisition reform?
    Answer. I am aware that the second Defense Acquisition 
Transformation Report was recently submitted. The Report has identified 
additional initiatives that are considered productive. If confirmed, I 
will study all of the acquisition reform initiatives to determine 
additional ways and means to improve the effectiveness and efficiency 
of the system.

                     WEAPONS SYSTEMS AFFORDABILITY

    Question. The investment budget for weapon systems has grown 
substantially over the past few years to $150 billion per year. An 
increasing share of this investment is being allocated to a few very 
large systems such as the Joint Strike Fighter, Future Combat Systems, 
and Missile Defense.
    Do you believe that the current investment budget for major systems 
is affordable given increasing historic cost growth in major systems, 
costs of current operations, projected increases in end strength, and 
asset recapitalization?
    Answer. Current investment budget projections for major systems do 
suggest these programs are affordable under current topline estimates 
and assumptions as well as given continuing support from Congress for 
costs in other areas. However, the DOD must execute these programs 
within budget and avoid incurring cost growth. The Department has been 
emphasizing funding programs to more realistic estimates. This is a 
practice I intend to continue, if confirmed.
    Question. What would be the impact of a decision by the Department 
to reduce purchases of major systems because of affordability issues?
    Answer. If confirmed, I will carefully assess the impact of any 
proposal to reduce purchases of major systems because of affordability 
and utilize the assessment in making final recommendations.
    Question. If confirmed, how do you plan to address this issue and 
guard against the potential impact of weapon systems cost growth?
    Answer. The Department must ensure that only those technologies and 
capabilities that are technologically mature are included in new 
systems. If confirmed, I intend to emphasize realistic cost estimates 
and funding profiles. If confirmed, I will also work to ensure that 
program requirements are well understood at program initiation and are 
stabilized as much as possible over the long-term to guard against 
``requirement creep.''

                        LEAD SYSTEMS INTEGRATOR

    Question. For the Future Combat Systems program and several other 
major defense acquisition programs, the Department has hired a lead 
system integrator (LSI) to set requirements, evaluate proposals, and 
determine which systems will be incorporated into future weapon 
systems.
    What are your views on the LSI approach to managing the acquisition 
of major weapon systems?
    Answer. I believe the acquisition team should keep every single 
management tool available in our toolbox, and the acquisition team 
should make judicious choices about the use of these tools. In general, 
I think the Department should use care in choosing an LSI strategy and 
should have very specific reasons for selecting a lead systems 
integrator approach. Use of an LSI for a major system acquisition is in 
some ways similar to hiring a prime contractor to develop a materiel 
solution to satisfy the government's need, which we strive to state in 
terms of performance requirements. An LSI generally performs comparable 
roles and responsibilities to a prime contractor. An LSI is subject to 
the same safeguards that apply to all Federal contractors, as defined 
by the standard clauses that are included in our contracts.
    Question. What lines do you believe the Department should draw 
between those acquisition responsibilities that are inherently 
governmental and those that may be performed by contractors?
    Answer. The rules regarding the performance of inherently 
governmental functions do not vary. The Government retains 
responsibility for the execution of the program; makes all 
requirements, budgeting and policy decisions; and performs source 
selections at the prime level.
    Question. If confirmed, what steps would you take to ensure that 
LSIs do not misuse their access to sensitive and proprietary 
information of the DOD and other defense contractors?
    Answer. The Department has contract terms, backed up by law and 
regulation, that govern what a prime contractor can do with information 
gained in the performance of a contract. Likewise, the subcontract 
arrangement established between the prime and subcontractor contains 
provisions that protect the subcontractor's information from misuse. If 
confirmed, I will review these issues as necessary and determine 
whether additional steps need to be taken.
    Question. If confirmed, what steps would you take to ensure that 
LSIs do not unnecessarily limit competition in a manner that would 
disadvantage the government or potential competitors in the private 
sector?
    Answer. This is a concern that arises in many programs as the 
defense industrial base becomes more concentrated. It is not an issue 
particular to contracts using an LSI. If confirmed, I will review these 
issues as necessary and determine whether additional steps need to be 
taken.

                         MULTIYEAR PROCUREMENTS

    Question. Providing a stable funding profile for defense programs 
is absolutely essential to effective program management and 
performance, for both DOD and the defense industry. One already tested 
means of increasing program funding stability is the use of multiyear 
contracts. At the same time, however, multiyear procurements tie up DOD 
funds over long periods of time, making it difficult for the Department 
to reallocate funds if they are needed to meet higher priority defense 
needs.
    What are your views on multiyear procurements? Under what 
circumstances do you believe they should be used?
    Answer. In general, I strongly favor multiyear procurement 
strategies. Frequently, multiyear procurements can offer substantial 
savings through improved economies in production processes, better use 
of industrial facilities, and a reduction in the administrative burden 
in the placement and administration of contracts. The following 
criteria should be considered in deciding whether a program should be 
considered for multiyear application: savings when compared to the 
annual contracting methods; validity and stability of the mission need; 
stability of the funding; stability of the configuration; associated 
technical risks; degree of confidence in estimates of both contract 
costs and anticipated savings; and promotion of national security.
    Question. What is your opinion on the level of cost savings that 
constitute ``substantial savings'' for purposes of the defense 
multiyear procurement statute, 10 U.S.C. Sec. 2306b?
    Answer. I favor placing no threshold on the level of cost savings 
that constitutes ``substantial savings.'' What is best for the taxpayer 
is to preserve flexibility for the Department to maximize savings 
through the use of multiyear contracts. Placing a threshold on 
``substantial savings'' would unnecessarily limit the contracting 
options available for large programs where significant taxpayer dollars 
could be saved.
    Question. Under what circumstances, if any, do you believe that a 
multiyear contract should be used for procuring weapons systems that 
have unsatisfactory program histories, e.g., displaying poor cost, 
scheduling, or performance outcomes but which might otherwise comply 
with the requirements of the defense multiyear procurement statute, 10 
U.S.C. Sec. 2306b?
    Answer. Additional analysis and careful review of all information 
should be completed when a multi year contract is being considered for 
use in procuring weapon systems that have unsatisfactory program 
histories but which otherwise comply with the statutory requirements. 
The Department would need to examine all risk factors to determine if 
multiyear procurement would be appropriate.
    Question. How would you analyze and evaluate proposals for 
multiyear procurement for such programs?
    Answer. The Department would need to examine all risk factors in 
conjunction with the potential for cost savings to determine if 
multiyear procurement would be appropriate for a program with an 
unsatisfactory history. If confirmed, I will analyze and evaluate 
proposals for multiyear procurements in accordance with all statutory 
and regulatory requirements.
    Question. If confirmed, what criteria would you apply in 
determining whether procuring such a system under a multiyear contract, 
is appropriate and should be proposed to Congress?
    Answer. If confirmed, the primary criteria I would seek to apply in 
deciding the appropriateness of the use of a multiyear contract is the 
potential for achieving cost savings for the Department and the 
taxpayer and the potential for successful industry execution. The 
determination of savings is clearly dependent on supporting criteria 
such as the stability of the budget, the stability of the requirement, 
the accuracy and validity of cost estimates, and the ability of the 
contractor to perform.
    Question. Under what circumstances, if any, should DOD ever break a 
multiyear procurement?
    Answer. Given careful screening of programs prior to awarding the 
multiyear contract, there should be very limited and unusual 
circumstances that would result in the breaking (i.e., cancellation) of 
a multiyear contract. If confirmed, the particular circumstances of any 
given break for a multiyear procurement would be addressed on a case by 
case basis.
    Question. If confirmed, how will you treat proposals to renegotiate 
multiyear procurements?
    Answer. If confirmed, I would treat proposals to renegotiate 
multiyear procurements very cautiously.

                                LEASING

    Question. Over the last several years, there has been much debate 
concerning the leasing of capital equipment to be used by the military 
services. Advocates of leasing capital equipment have argued that 
leases can enable the Department to obtain new equipment without 
significant upfront funding. Opponents of such leases have argued that 
this approach shifts today's budget problems to future generations, 
limiting the flexibility of future leaders to address emerging national 
security issues.
    What are your views on leasing of capital equipment, and when, if 
ever, do you consider such leasing to be a viable mechanism for 
providing capabilities to the Department?
    Answer. In general, I believe the acquisition team should keep 
every single management tool available in our toolbox, and the 
acquisition team should make judicious choices about the use of these 
tools. I consider leasing of capital equipment to be a viable mechanism 
for providing capabilities to the Department in a limited number of 
circumstances. In general, I believe that a lease should be cost 
effective for the DOD unless there are additional, compelling reasons 
for use of a lease. Leases are rarely suitable for the acquisition of 
major military systems and should not be used just to avoid upfront 
investment costs.
    Question. The Air Force proposal in 2001 to lease 100 tanker 
aircraft was severely criticized by a series of independent reviewers--
including the Congressional Budget Office, the Congressional Research 
Service, the National Defense University, the GAO, and the DOD 
Inspector General (IG)--before it was finally cancelled.
    What do you believe were the major problems with the tanker lease 
proposal?
    Answer. The proposal has been critiqued by a series of independent 
reviewers--including the Congressional Budget Office, the Congressional 
Research Service, the National Defense University, the GAO, and the DOD 
IG. The reviews generally suggested there was a lack of transparency 
and accountability within the Department. If confirmed, I will continue 
to work to ensure that the lessons learned are incorporated into the 
training, education, and business processes of the Department.
    As an observer of the tanker lease proposal, I was concerned about 
two significant issues. First, I believe the proposal needed a high 
quality, accurate cost analysis to inform the deliberations. A proposal 
of this scope may have also merited a concurrent, independent cost 
analysis. The cost and a number of other factors should have been 
weighed and debated in a more transparent process. Second, I believe 
the Air Force had not carefully assessed the Service's ability to 
purchase the tankers at the end of the lease within their projected 
budgets beyond the Future Years Defense Program (FYDP). A second lease 
would have been costly to the taxpayer. Alternately, it would also have 
been very expensive to slow or break other acquisition programs in 
order to budget for the buyout of the lease just beyond the FYDP.
    Question. What lessons do you believe the DOD should learn from the 
failed effort to lease tanker aircraft?
    Answer. The undertaking of an acquisition program of such a 
magnitude needs to be fully transparent and consider the concerns of 
all the stakeholders. Also, as is the case in virtually every 
acquisition program, the DOD needed to fully understand the life cycle 
cost issues, including buyout of the lease, and realistically assess 
the affordability of the program within the reasonable projections of 
the long-term budget.

                        TANKER RECAPITALIZATION

    Question. Before the final KC-X Request for Proposals (RFP) was 
disseminated, the Air Force briefed Congress on the benefits to the 
Department of continuous competition over the life of the KC-X program, 
particularly in view of the fact that modernizing the tanker fleet is 
projected to take several decades. The assertion was made that, 
consistent with experience, competition would provide the best product 
for the Department at the best price.
    What are your views on whether the current acquisition strategy 
supporting the KC-X tanker program should have the benefit of 
competition beyond the first 80 aircraft?
    Answer. If confirmed, I will carefully review the KC-X tanker 
program acquisition strategy. While it is possible the program could 
benefit from competition beyond the initial procurement, I think there 
would have to be clear and compelling potential for cost savings for 
the taxpayers that would offset the potential cost increases of a new 
competition, an additional non-recurring investment for development, 
and a life cycle premium for different type model series aircraft. The 
additional costs may be offset by the potential benefits of competition 
as well as allowing the insertion of beneficial new technology to the 
fleet. Frankly, it would be very difficult to accurately assess all of 
these factors today, thus I believe that it is premature to make this 
decision at this point in time.
    Question. Do you agree or disagree with the findings of the IG's 
report?
    Answer. I understand that the DOD IG report on the Air Force KC-X 
Aerial Refueling Tanker Aircraft Program of May 30, 2007, found that 
the Air Force did not include in the KC-X acquisition strategy a 
requirement to obtain accurate, complete, and current cost and pricing 
data to determine the reasonableness of the contractor's proposed price 
for the noncompetitive portion of the KC-X aircraft acquisition.
    I also understand that the Air Force concurred with the finding and 
will update the acquisition strategy for the Milestone B decision, 
anticipated by the end of 2007. If confirmed, I will further review the 
IG report as appropriate.
    Question. What actions would you take if confirmed, to ensure that 
the appropriate level of oversight will be possible and will occur on 
the KC-X program?
    Answer. As an Acquisition Category (ACAT) 1D program, the milestone 
decision authority for KC-X is the Defense Acquisition Executive (DAE), 
USD(AT&L). As you are aware, the Defense Acquisition System includes a 
robust senior level review process to advise the DAE in his oversight 
of program planning and execution. If confirmed, I will exercise all 
appropriate and necessary oversight of this program, and the Department 
will manage the program with transparency and openness.

           UNSOLICITED C-17 GLOBEMASTER PROCUREMENT PROPOSAL

    Question. In March 2007, the contractor supplying the C-17 aircraft 
directed its long-lead suppliers for that aircraft to cease work on 
parts which were not already under contract. The contractor 
subsequently instructed its suppliers to resume work on providing parts 
for 10 new C-17s beyond the number already on order with the Air Force 
and its international customers. In a statement issued on June 19, 
2007, the contractor explained its action citing ``increased bipartisan 
congressional support'' and ``increasing signs that the U.S. Air Force 
has requirements for 30 additional C-17s.'' The contractor reportedly 
told these suppliers that it would ``commit [its] resources to provide 
long-lead funding for the C-17s to be delivered after mid-2009'' and 
that this ``action will protect the option in the months ahead for the 
cost-effective acquisition of C-17s in fiscal year 2008.''
    What is your view of the responsibility (if any) that the 
Government bears when a contractor decides to build a product on 
speculation that the Government might decide to buy it in the future?
    Answer. The government bears no responsibility and should not 
encourage such an action.
    Question. Do you believe that the Government's responsibility for 
such a decision changes if Government officials encourage the 
contractor to do so? In your view, would such communications by a 
Government official be appropriate?
    Answer. The government should not encourage such an action, and it 
would be inappropriate to have any such communications other than via 
formal contracting actions.
    Question. Are you aware of any such communications in this case?
    Answer. No, I am not aware of any such communications.
    Question. What are your views, if any, on whether the Air Force 
should purchase additional C-17s that are not reflected in the Future 
Years Defense Plan or the Air Force's Unfunded Priority List?
    Answer. Force structure decisions should be based on military 
judgment and sound planning and analysis regarding the future needs for 
joint warfighting.
    Question. If the Air Force were to pursue such purchases, what are 
your views on how they should be funded? Do you believe that any such 
funding should come from within the Air Force budget?
    Answer. Any such purchase should be programmed and budgeted via the 
Planning, Programming, Budgeting, and Execution system.

                           LEAD SHIP FUNDING

    Question. In recent years, the DOD has shifted its policy for 
funding the construction of first ships of a class. While the 
Department previously funded such vessels in Shipbuilding and 
Conversion, Navy, they are now funded in R&D accounts. This change was 
implemented to provide additional management flexibility, but it has 
also resulted in reduced visibility over cost, schedule, and 
performance. For example, the scope of problems with the Littoral 
Combat Ship (LCS) was identified by the Navy only months before 
available funds were exhausted.
    Do you believe that funding the construction of first ships of a 
class in R&D accounts is in the best interest of the DOD? If so, why?
    Answer. As the Navy acquisition executive, I believed strongly in 
funding the lead ship of a class with research, development, test, and 
evaluation (RDT&E) funds. It is difficult, if not impossible, to 
accurately predict the exact cost of a lead ship of a class. When cost 
growth develops, the mechanisms in place between Congress and the 
Pentagon for adjusting to unexpected cost increases can often result in 
further delays and therefore even more cost increases. Indeed, the Ship 
Cost Adjustment process, and the restriction to use funds in the year 
of appropriation for paying ship cost increases is extremely cumbersome 
and difficult. This process frankly encourages poor management choices 
and late recognition of the need for funds.
    It was my expectation that the DOD would make budget adjustments 
for the lead ship, if necessary, in the annual RDT&E budget. Those 
budgets would be fully visible to Congress and subject to Congress' 
authorization and appropriation oversight. Congress would actually have 
far greater visibility and oversight into our management of the lead 
ship. There is absolutely no reason for there to be less visibility 
into the cost of a lead ship funded in the RDT&E account. I am 
committed to ensuring the DOD and Congress have full visibility into 
the cost of our platforms. The Department always maintains an estimate 
at completion for the cost of a ship regardless of the type of funds 
used. The alternative is to budget a best estimate for a challenging 
lead ship and wait several years to determine whether the large block 
of single year funds has been sufficient. Indeed, I worry that the 
early phase decisions in a construction program lasting several years 
are not adequately cost constrained because of the availability of a 
large block of single year funds provided to cover the entire cost of 
the lead ship. I believe the annual appropriation of R&D funds would 
actually put greater pressure on the acquisition team and industry to 
make careful decisions about managing funds at each step of the lead 
ship construction process.
    Question. What steps, if any, do you believe the Department and 
Congress should take to address the lack of visibility that can result 
from funding first ships of a class in R&D accounts?
    Answer. I do not agree that funding the lead ship of a class 
results in a lack of visibility into the cost of a ship. The visibility 
into the cost of the lead ship is no better if the lead ship is 
authorized and appropriated one single year block of funds for the 
entire cost of the lead ship to spend over several years in 
procurement. Indeed, Congress has been concerned in the past to learn 
years later of the need for funds to complete the construction of 
previously authorized and appropriated lead ships. Funding lead ships 
in RDT&E actually provides Congress far greater visibility into the 
cost and progress on a lead ship. The DOD will provide Congress an 
estimate of the total cost of the lead ship and indicate the annual 
increments in the RDT&E accounts. Congress will get an annual update on 
the projected cost to complete the lead ship and will have the 
opportunity to review and approve every cost increase and adjustment. 
Indeed, Congress will have insight into possible cost growth far 
earlier than a traditional lead ship procurement process where the 
total initial cost estimate for the ship is almost spent, at taxpayer 
expense, and the DOD and Congress are faced with new bills and a 
significant sunk cost.
    Question. What is your opinion on the use of fixed-price contracts 
for lead ships?
    Answer. The value and risk associated with using fixed-price 
contracts for lead ships must be assessed in conjunction with the 
technological challenges associated with each ship program. I support 
Congress' approach as set forth in section 818 of the National Defense 
Authorization Act for Fiscal Year 2007, which directed the Milestone 
Decision Authority to select the appropriate type of contract, after 
reviewing the complexity and technological risk associated with the 
program.

                          LITTORAL COMBAT SHIP

    Question. Secretary Winter recently cancelled the contract for one 
of the vessels in the LCS program as a result of the Navy's inability 
to bring costs under control in that program. According to the Office 
of the IG of the Navy, one of the contributing factors in the poor cost 
performance on that program may have been the inexperience and lack of 
qualifications of the Navy Program Manager.
    What lessons should be learned from the problems experienced to 
date with the LCS procurement?
    Answer. I have not reviewed the LCS program in adequate detail to 
determine the lessons learned. However, based on some cursory reviews, 
I believe there are some initial lessons. First, every program requires 
a valid and effective earned value management system in order to 
provide industry and the government with an accurate, measurable sense 
of progress. This was a serious deficiency for the LCS program. Second, 
acquisition program management is a contact sport, and new ways of 
doing business require even greater diligence and management attention. 
The DOD has constantly learned that controlling requirements 
adjustments requires constant attention and discipline. LCS affirmed 
that there is another level of requirements, government technical 
authority, which requires determined management and discipline. To be 
certain, industry must perform, and it is not clear that the level of 
industry performance on LCS was adequate. However, the government has a 
responsibility to operate in a manner that can help enable success and 
in a manner that is consistent with industry planning expectations. The 
interpretation of technical authority and the translation of those 
changes into performance made LCS delivery to budget impossible for 
both government and industry.
    Question. If confirmed, how would you expect to apply those 
``lessons learned'' in overseeing the management of both the LCS and 
other major defense acquisition programs?
    Answer. If confirmed, I will continue the DOD's efforts to ensure 
that acquisition programs have management baselines which can be 
tracked with an earned value management system. If confirmed, I will 
also continue to evaluate appropriate additional steps that should be 
taken to provide effective oversight of major defense acquisition 
programs.
    Question. As the Assistant Secretary of the Navy for Research, 
Development, and Acquisition (ASN(RDA) at the time, what was your role 
in selecting the former LCS Program Manager and in approving his 
qualifications for that position?
    Answer. My recollection is that I approved the assignment of the 
former LCS program manager for the position with reservations. During 
my tenure as ASN(RDA), I generally sought to avoid approving waivers 
and to reject officers for key acquisition positions unless those 
officers met the acquisition experience and training criteria for those 
positions. The military personnel detailing system generally put 
forward one or more candidates, for assignment to open positions. In 
this case, the military personnel system felt strongly that an 
experienced operational officer with strong leadership skills should 
manage the LCS program, despite his limited acquisition experience. The 
military personnel system also felt that strong program executive 
officer (PEO) oversight and supporting acquisition talent would fill 
any gaps. There are many instances where I rejected personnel because 
of the lack of acquisition experience and training. In this case, I 
regrettably did not reject this assignment, acknowledging strong views 
from the military personnel system.
    Question. What steps need to be taken, in your view, to ensure that 
officers selected for program management positions have sufficient 
training and qualification to succeed?
    Answer. We have a very capable work force from which to select our 
prospective program managers. I would emphasize career management 
including selection, training, tenure and mentoring of program 
managers. Succession planning and a rigorous selection process are key 
tools for obtaining capable military and civilian program managers. As 
part of their career development process, officers seeking to manage 
programs must pursue the training necessary to be certified and have 
significant experience in acquisition management. I think the 
Department should only in the rarest cases, if ever, assign an officer 
without requisite acquisition credentials and experience to a program 
management or PEO position.

                          SOFTWARE DEVELOPMENT

    Question. Problems with computer software have caused significant 
delays and cost overruns in a number of major defense programs. Section 
804 of the National Defense Authorization Act for Fiscal Year 2003 
required DOD to establish a program to improve the software acquisition 
process.
    What is the status of DOD's efforts to improve software development 
in major weapon systems?
    Answer. I understand that the Department has established a 
Directorate for Systems and Software Engineering focused on improving 
software assurance. The Directorate supports acquisition success 
through software policy, guidance and best practices, reinforced 
through program reviews; improves the state of practices for software 
engineering; provides leadership and advocacy through outreach 
initiatives; and fosters software resources to meet DOD needs. If 
confirmed, I will evaluate as appropriate the DOD's progress and plans 
in this area.
    Question. What additional steps would you take, if confirmed, to 
address delays and cost overruns associated with problems in the 
development of software for major weapon systems?
    Answer. If confirmed, I would generally initiate an internal and/or 
independent executive review of the major systems which have 
experienced software delays and cost overruns.

                        ANALYSIS OF ALTERNATIVES

    Question. When a required capability is defined, one method to 
ensure that capability is provided in the most cost-effective manner is 
through the conduct of an analysis of alternatives (AOA). This analysis 
not only helps to present alternatives, but also assists in the 
determination of key performance parameters and the threshold and 
objective values of these parameters.
    Under what circumstances, if any, do you believe it is appropriate 
for the Department to proceed with the acquisition of a major system 
without first conducting an AOA?
    Answer. I do not believe it is appropriate for the Department to 
proceed with the acquisition of a major Acquisition Category I (ACAT I) 
level system without first conducting an AOA. I do believe there are 
opportunities to improve the process by making AOA's tailored, more 
timely and appropriately scoped.
    Question. If confirmed, what will be your position on conducting 
analyses of alternatives for the programs for which you will be the 
Milestone Decision Authority?
    Answer. If confirmed, I will generally expect that an appropriate 
AOA will be conducted before any program for which I am the Missile 
Defense Agency (MDA) can proceed into development.

                           RAPID ACQUISITION

    Question. Section 811 of the Ronald W. Reagan National Defense 
Authorization Act for Fiscal Year 2005 gave the Secretary of Defense 
new authority to waive certain statutes and regulations where necessary 
to acquire equipment that is urgently needed to avoid combat 
fatalities.
    What plans do you have, if confirmed, to use the rapid acquisition 
authority provided by section 811?
    Answer. If confirmed, I would support the Secretary's use of the 
Rapid Acquisition Authority when it becomes necessary to waive certain 
statutes and regulations that inhibit our ability to rapidly acquire 
equipment that is urgently needed to avoid combat fatalities.
    Question. Do you believe that the Department has the authority and 
flexibility it needs to acquire products needed to avoid combat 
fatalities? If not, what additional authority or flexibility do you 
believe is needed?
    Answer. The Department has significant authority and flexibility to 
meet urgent operational needs, and the Rapid Acquisition Authority 
granted by Congress further complements that authority and flexibility. 
I believe the Department must continue its efforts to respond more 
quickly and effectively to resolve urgent operational needs for our 
forces in the field.
    If confirmed, I will evaluate the need for additional changes as 
these needs are identified, and I will make appropriate 
recommendations.
    Question. When the Department acquires equipment under section 811 
or other authority without first undertaking full operational testing 
and evaluation, what steps do you believe the Department should take to 
ensure the long-term effectiveness and sustainability of the equipment?
    Answer. I believe the Department takes appropriate steps when it 
acquires equipment under section 811 or other authority. There is 
prudent risk management to ensure that our forces receive equipment 
that is appropriately safe, interoperable, suitable and effective for 
its intended purpose. When the solutions to immediate warfighter needs 
transition to programs of record, steps are taken to continue to verify 
their long-term effectiveness and to ensure adequate sustainment and 
training plans for the equipment are developed.

                          SERVICES CONTRACTING

    Question. Over the past decade, there has been a dramatic increase 
in the volume of services purchased by the DOD. At the request of the 
committee, the GAO has compared DOD's practices for the management of 
services contracts to the practices of best performers in the private 
sector. GAO concluded that leading companies have achieved significant 
savings by insisting upon greater visibility and management over their 
services contracts and by conducting so-called ``spend'' analyses to 
find more efficient ways to manage their service contractors. Section 
801 of the National Defense Authorization Act for Fiscal Year 2002 
required DOD to move in this direction. While DOD has initiated efforts 
to establish a management structure and leverage its purchasing power, 
we understand such efforts remain in various stages of implementation.
    What is the status of these efforts, and do you believe the 
Department is providing appropriate stewardship over service contracts?
    Answer. The DOD has a number of efforts underway in an effort to 
improve management of service contracts. If confirmed, I will review 
our progress and plans for these initiatives as necessary.
    Question. Do you believe that the Department should conduct a 
comprehensive analysis of its spending on contract services, as 
recommended by GAO?
    Answer. If confirmed, I would support near-term efforts to conduct 
spend analyses to develop a better understanding of how the DOD buys 
services.
    Question. What steps would you take, if confirmed, to improve the 
Department's management of its contracts for services?
    Answer. If confirmed, I will review the Department's initiatives 
and plans to manage this set of issues to ensure that we are making the 
necessary progress in providing oversight and management of the 
Department's acquisitions of services.
    Question. The Office of Federal Procurement Policy and the DOD have 
long agreed that Federal agencies could achieve significant savings and 
improved performance by moving to performance-based services 
contracting (PBSC). Most recently, the Army Environmental Program 
informed the committee that it has achieved average savings of 27 
percent over a period of several years as a result of moving to fixed-
price, performance-based contracts for environmental remediation. 
Section 802 of the National Defense Authorization Act for Fiscal Year 
2002, as amended, established performance goals for increasing the use 
of PBSC in DOD service contracts.
    What is the status of the Department's efforts to increase the use 
of PBSC in its service contracts?
    Answer. I do not have direct experience in this area. However, I 
would be pleased to work with Congress on this issue, if confirmed.
    Question. What additional steps do you believe the Department needs 
to take to increase the use of PBSC and meet the goals established in 
section 802?
    Answer. If confirmed, this is an issue which I would have to review 
in detail in order to be able to make recommendations to the committee.

                        INTERAGENCY CONTRACTING

    Question. GAO recently placed interagency contracting--the use by 
one agency of contracts awarded by other agencies--on its list of high-
risk programs and operations. While interagency contracts provide a 
much-needed simplified method for procuring commonly used goods and 
services, GAO has found that the dramatic growth of interagency 
contracts, the failure to clearly allocate responsibility between 
agencies, and the incentives created by fee-for-services arrangements, 
have combined to expose the DOD and other Federal agencies to the risk 
of significant abuse and management. The DOD IG and the General 
Services Administration (GSA) IG have identified a long series of 
problems with interagency contracts, including lack of acquisition 
planning, inadequate competition, excessive use of time and materials 
contracts, improper use of expired funds, inappropriate expenditures, 
and failure to monitor contractor performance. DOD, in conjunction with 
the GSA and the Office of Management and Budget, is taking a number of 
actions to improve training and guidance on the use of this contract 
approach.
    If confirmed, what steps will you take to monitor and evaluate the 
effectiveness of the actions currently underway or planned regarding 
DOD's use of other agencies' contracts?
    Answer. If confirmed, I would continue the efforts outlined in the 
January 1, 2005 policy on the ``Proper Use of Non-DOD Contracts.'' 
Adequate data must be obtained so that DOD and the assisting agencies 
know which DOD activities are utilizing non-DOD contracts to meet their 
needs and to specifically identify what the assisting agencies are 
acquiring on our behalf. The Department should continue the 
coordination between OSD and the assisting agencies (i.e., GSA, 
Interior, Treasury, and National Aeronautics and Space Administration 
(NASA)). The DOD should also seek to understand the driving forces 
behind these activities, including the possibility that the DOD is not 
adequately manned to independently execute and manage these efforts.
    Question. Do you believe additional authority or measures are 
needed to hold DOD or other agency personnel accountable for their use 
of interagency contracts?
    Answer. Given what I know today, I believe the authority and 
regulations are sufficient in terms of accountability. If confirmed, I 
will review and evaluate these issues as necessary.
    Question. Do you believe contractors have any responsibility for 
assuring that the work requested by DOD personnel is within the scope 
of their contract?
    Answer. The primary responsibility for ensuring work is within the 
scope of a contract rests with the contracting officer.
    Question. Do you believe that DOD's continued heavy reliance on 
outside agencies to do award and manage contracts on its behalf is a 
sign that the Department has failed to adequately staff its own 
acquisition system?
    Answer. I believe the DOD should seek to understand the driving 
forces behind these activities, including the possibility that the DOD 
is not adequately manned to independently execute and manage these 
efforts. I believe the Department may determine that there are areas 
where staffing is inadequate.

                            ``BUY AMERICA''

    Question. ``Buy America'' issues have been the source of 
considerable controversy in recent years. As a result, there have been 
a number of legislative efforts to place restrictions on the purchase 
of defense products from foreign sources.
    What benefits do you believe the Department obtains from 
international participation in the defense industrial base?
    Answer. International sales, purchases, and licensed production 
ensure U.S. warfighters have access to the best technology in the 
world. International participation also promotes international defense 
cooperation, contributes to operational interoperability, and promotes 
cost savings. These arrangements rationalize the defense equipment 
supplier base to achieve the greatest efficiency in equipping our 
collective forces.
    Question. Under what conditions, if any, would you support the 
imposition of domestic source restrictions for a particular product?
    Answer. In certain instances involving national security and the 
preservation of a key defense technology or production capability, 
domestic source restrictions may be necessary. The Department has (and 
has exercised) the authority to ``self-impose'' such domestic source 
restrictions using the authority of 10 U.S.C. 2304(c)(3). These 
restrictions then are included in the Defense Federal Acquisition 
Regulation Supplement.
    Question. Section 831 of the Ronald W. Reagan National Defense 
Authorization Act for Fiscal Year 2005 requires the Secretary of 
Defense to ensure that the United States firms and United States 
employment in the defense sector are not disadvantaged by unilateral 
procurement practices by foreign governments, such as the imposition of 
offset agreements in a manner that undermines the United States 
industrial base.
    What steps, if any, do you believe the Department should take to 
implement this requirement?
    Answer. I understand that the DOD has established an interagency 
team composed of the Departments of Defense, Labor, Commerce, and State 
and the U.S. Trade Representative whose charter is to consult with 
other nations about limiting the adverse effects of offsets. I think 
the team should continue its work. If confirmed, I would review many 
proposed actions to ensure they will not harm the economy, defense 
industrial base, defense production, or defense preparedness.

                            SPECIALTY METALS

    Question. Section 842 of the John Warner National Defense 
Authorization Act for Fiscal Year 2007 recodified the specialty metals 
provision of the Berry Amendment in section 2533b of title 10, U.S.C. 
On January 17, 2007, the Director of Defense Procurement and 
Acquisition Policy issued a memorandum implementing the non-
availability exception in section 2533b. The January 17, 2007, 
memorandum states: ``Several factors can and should be taken into 
consideration in making a determination that compliant specialty metal 
is not available. Are compliant parts, assemblies or components 
available in the required form as and when needed? What are the costs 
and time delays if requalification of certain parts of the system is 
required? What will be the impact on the program's delivery schedule, 
program costs, and mission needs?''
    Do you believe that section 2533b provides the Department the 
flexibility that it needs to ensure that it can purchase weapon systems 
and parts in a timely manner for the national defense?
    Answer. It is my understanding that the provision permits the 
Department to utilize a non-availability exception when the Department 
is not able to access compliant suppliers. If confirmed, I will review 
this provision for a more complete understanding of flexibility for 
assurance of our weapon system purchases.
    Question. Do you believe that the steps taken by the Department to 
implement section 2533b have been consistent with the requirements of 
that provision?
    Answer. If confirmed, I will complete any necessary reviews of the 
steps taken to ensure the consistent implementation of the provision.
    Question. If confirmed, what additional steps, if any, would you 
plan to take to ensure that section 2533b is implemented in a manner 
that is consistent with the interests of the DOD?
    Answer. The DOD has established a Strategic Materials Protection 
Board, in accordance with Section 843 of Public Law 109-364. If 
confirmed, I will become the Chairman of that Board. If confirmed, I 
will seek to ensure that the Board examines national security and 
domestic availability issues associated with specialty metals and other 
strategic materials critical to national security.
    Question. What changes, if any, would you recommend be made to 
section 2533b?
    Answer. If confirmed, I will complete appropriate reviews of the 
implementation of section 2533b and make any necessary change 
recommendations.
    Question. On July 2, 2007, the DOD proposed to amend the Defense 
Federal Acquisition Regulation Supplement to waive application of 
section 2533b to commercial off-the-shelf (COTS) items. The Federal 
Register Notice states: ``Exercise of this statutory COTS waiver is 
critical to DOD's access to the commercial marketplace.''
    Do you support the Department's decision to exercise this exemption 
authority?
    Answer. In general, the acquisition of COTS products is one way to 
consider cost, schedule and performance alternatives. If confirmed, I 
will review the Department's decision as appropriate.
    Question. What is your understanding of the extent to which COTS 
items are embedded in major weapon systems purchased by the DOD?
    Answer. To my knowledge, the Department has conducted no definitive 
studies on the extent to which COTS items are embedded in major weapons 
systems. If confirmed, it may be appropriate to ask major weapon system 
programs to review the extent of COTS item usage in military systems.
    Question. Do you believe that the DOD has sufficient market power 
to persuade producers of COTS items to alter their commercial supply 
chains to comply with the requirements of section 2533b?
    Answer. When the Department is not the predominant buyer, it has 
limited leverage in those markets. There is little incentive for 
commercial companies to modify their procedures to meet the peculiar 
requirements of the Department, particularly if the Department is a 
small player in the market and changes would affect the firm's 
competitiveness.
    Question. Do you believe that it would be in the Department's 
interest to do so?
    Answer. In general, it is in the Departments best interest to get 
the best value. If confirmed, I will review this area as appropriate.

                      THE DEFENSE INDUSTRIAL BASE

    Question. What is your view of the current state of the U.S. 
defense industry?
    Answer. I believe the U.S. defense industry is a market leader and 
innovator for products and services. Nevertheless, there are and will 
always be challenges the Department must address. If confirmed, I would 
work within the Department and with Congress to address them.
    Question. Do you support further consolidation of the U.S. defense 
industry?
    Answer. There should be no blanket policy of encouraging or 
discouraging further consolidation or divestiture. Each proposed 
transaction must be evaluated on a case-by-case basis in the context of 
the individual market, the changing dynamics of that market, and the 
need to preserve competition. Generally, I am concerned about 
consolidation trends which have had an adverse impact on competition 
opportunities for the DOD.
    Question. What is your position on foreign investment in the U.S. 
defense sector?
    Answer. In general, I am not opposed to foreign investment in the 
United States, provided there are checks and balances to protect our 
national security.
    Question. What steps, if any, do you believe the DOD should take to 
ensure the continued health of the U.S. defense industry?
    Answer. The Department should continue to take actions and make 
decisions that strengthen that portion of the industrial base that 
supports defense. The Department also should continue to focus its 
acquisition strategies, both for development and production, in a 
manner that encourages true competition and drives innovation--seeking 
to draw nontraditional suppliers into the defense enterprise.

ROLE OF THE UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND 
                               LOGISTICS

    Question. Concerns have been expressed that over time the purview 
of the office of the USD(AT&L) has been diminished. The Department has 
established a separate set of regulations for the acquisition of space 
systems. The MDA has the primary role for missile defense systems and 
has established its own acquisition approach for these systems. Air 
Force acquisition scandals and the use of Other Transaction Authority 
on the Future Combat Systems program have raised questions as to the 
effectiveness of oversight provided by the USD(AT&L).
    Do you believe that the USD(AT&L) has the authority necessary to 
provide effective oversight over major acquisition programs of the 
military departments and defense agencies?
    Answer. At this point, I believe the USD(AT&L) has the authority 
needed to execute the responsibilities of the position. Those 
responsibilities include oversight of both Missile Defense and Space 
Systems acquired by the Department of Defense. I believe that it is 
important for the USD(AT&L) to fully exercise those authorities working 
in partnership with the Services and Agencies.
    Question. Do you believe that the USD(AT&L) should have additional 
authority to reverse acquisition decisions of the military departments, 
where the USD(AT&L) believes it is necessary to do so in the public 
interest?
    Answer. At this point, I do not believe additional authority is 
required. The USD(AT&L) reviews ACAT I programs and has the ability to 
assume cognizance over any other acquisition program in the department 
in which the USD(AT&L) has a ``special interest.'' I do believe that 
the offices in USD(AT&L) need transparency and visibility into all 
Service and agency acquisition efforts. There may be cases where the 
management team in USD(AT&L) should use available authorities to ensure 
both public interest as well as greater jointness and interoperability.
    Question. In your view, should the Service Acquisition Executives 
(SAEs) report directly to the USD(AT&L)?
    Answer. The current arrangement properly recognizes the 
responsibility of the Secretary of each military department for all 
affairs of that department, including supplying and equipping, and it 
facilitates a strong tie between the SAEs and the other military 
department leadership, including those developing capability needs. The 
USD (AT&L) currently has adequate authority to provide guidance and 
direction to the SAEs through the military department secretaries. 
However, if confirmed, I would review what changes, if any, are 
appropriate to improve oversight and communication.
    Question. Do you believe that the Service Chiefs should play a role 
in the acquisition chain of command?
    Answer. The Service Chiefs have a key role to play in the 
development of capability needs and in the planning and allocation of 
resources consistent with those needs. I do not believe service chiefs 
should play a formal role in the acquisition chain of command.
    Question. What role should USD(AT&L) perform in the oversight and 
acquisition of joint programs, the acquisition of space systems, and 
missile defense systems?
    Answer. The USD(AT&L) has cognizance over the entire acquisition 
process including the oversight and acquisition of joint, space, and 
missile defense systems. I believe this broad, corporate oversight role 
is vital and should be maintained and fully exercised.

                         ACQUISITION WORKFORCE

    Question. Over the last decade, DOD has reduced the size of its 
acquisition workforce by almost half, without undertaking any 
systematic planning or analysis to ensure that it would have the 
specific skills and competencies needed to meet DOD's current and 
future needs. Additionally, more than half of DOD's current workforce 
will be eligible for early or regular retirement in the next 5 years. 
While DOD has started the process of planning its long-term workforce 
needs, GAO reports that the Department does not yet have a 
comprehensive strategic workforce plan needed to guide its efforts.
    In your view, what are the critical skills, capabilities, and tools 
that DOD's workforce needs for the future? What steps will you take, if 
confirmed, to ensure that the workforce will, in fact, possess them?
    Answer. In general, some of the most pressing critical skills 
needed for future success are program management, systems engineering, 
cost estimating, logistics, contracting, and test and evaluation. I 
believe that meeting warfighter needs demands continued leveraging of 
technology, and this means we need a strong S&T component of the 
acquisition workforce. If confirmed, I will support initiatives to 
increase funding for workforce recruiting, development and retention 
initiatives to ensure we have the right skills and capabilities. If 
confirmed, I would hope to take steps to improve the speed, agility and 
flexibility of DOD's processes for recruiting and hiring these critical 
members of the workforce.
    Question. Do you agree that the Department needs a comprehensive 
human capital plan, including a gap analysis and specific recruiting, 
retention and training goals, to guide the development of its 
acquisition workforce?
    Answer. I believe that a comprehensive human capital strategic plan 
is a useful tool for guiding development of the acquisition, technology 
and logistics workforce. I understand that the Under Secretary for 
Defense, Personnel and Readiness, is leading department-wide efforts to 
ensure comprehensive human capital planning. I will work closely with 
his staff, the Services, and Congress to successfully implement 
responsive workforce initiatives. I believe successful execution of 
this plan will require process improvements which allow DOD to 
effectively compete for human capital.
    Question. Do you believe that DOD's workforce is large enough to 
perform the tasks assigned to it? Do you support congressionally-
mandated cuts to the acquisition workforce, and do you think further 
cuts are necessary?
    Answer. I am not aware of any legislation pending which would 
reduce the acquisition workforce. The appropriate size of the 
acquisition workforce is a very important issue that I will engage in 
partnership with the Services to ensure we have the workforce size, 
capability and capacity to meet critically important acquisition needs. 
If confirmed, I look forward to working with the committee on this 
challenge.
    Question. Has the Department had difficulty in attracting and 
retaining new staff to come into the acquisition workforce? If so, what 
steps do you think are necessary to attract talented new hires?
    Answer. During the past 5 years, data suggests that the Department 
has experienced both success and challenges in attracting and retaining 
acquisition workforce members. If confirmed, I will review the steps 
being taken and provide guidance for continued improvement to address 
this important area.
    Question. What are your views regarding assertions that the 
acquisition workforce is losing its technical and management expertise 
and is beginning to rely too much on support contractors, Federally-
Funded Research and Development Centers, and, in some cases, prime 
contractors for this expertise?
    Answer. I do have concerns about our human capital in the 
acquisition workforce and am keenly aware of challenges having to do 
with technical expertise from my role as the DDR&E and Chief Technology 
Officer of the Department. If confirmed, I will place a high priority 
on efforts to attract, develop, and retain expertise in the technical 
and managerial fields. Technical and managerial expertise provided by 
the private sector has been, and I believe will continue to be, an 
important contribution to national security. If confirmed, I intend to 
ensure there is an appropriate balance of skills suited to the 
circumstances and activities to be performed.
    Question. What is the appropriate tenure for program managers and 
PEOs to ensure continuity in major programs?
    Answer. The assignment period for program managers and PEOs must 
facilitate both continuity and individual accountability. On May 25, 
2007, the USD(AT&L) issued a memorandum that expanded on existing 
policy. The memo emphasized the statutory requirement (10 U.S.C. 1734) 
for the Component Acquisition Executive (CAE) to ensure a written 
tenure agreement is prepared when a program manager is assigned to an 
ACAT I or II program and highlighted that the tenure period for program 
managers of major defense programs shall correspond to the major 
milestone closest to 4 years or as tailored by the CAE based on unique 
program requirements, such as significant milestones, events or 
efforts. If confirmed, I would monitor implementation of these tenure 
requirements to ensure continuity in major acquisition programs. I 
believe that these tenure requirements are very important, and the 
tenure requirements should be honored with only extremely rare 
exceptions.

                         LOGISTICS AND SUPPORT

    Question. The Department is increasingly relying on civilian 
contractors in combat areas for maintenance and support functions.
    How do you view this trend? Do you believe that the Department has 
drawn a clear and appropriate line between functions that should be 
performed by DOD personnel and functions that may be performed by 
contractors in a combat area?
    Answer. The U.S. Armed Forces have always been supported by 
civilian contractors, whether at peace or war. The post-Cold War force 
reduction of military forces, the ``peace dividend,'' is the driving 
force for where we are today. In order to maintain desired combat 
capability, clearly an ``inherently governmental mission,'' in the 
smaller force, the Department reduced the military logistical support 
force structure. Contract capabilities fill the void and provide 
support which can be drawn upon only as needed to perform functions 
that must be accomplished to support the military forces. DOD has, 
consistent with available resources, their allocation, and mission 
requirements, defined those roles which remain inherently governmental 
in nature. For example, only military forces may operate offensively 
under rules of engagement. Security contractors are only permitted to 
operate defensively and must conform to a separate set of instructions, 
the Rules on the Use of Force. I believe this is an important topic in 
the context of modern warfare, and if confirmed, I will examine these 
issues carefully.
    Question. Transforming supply chain management will require not 
only process improvements but major investments in technology and 
equipment ranging from the use of passive Radio Frequency 
Identification (RFID) tags to improve asset visibility to procuring 
more trucks to improve theater distribution.
    What steps do you believe are necessary to improve the management 
of DOD's supply chain?
    Answer. DOD Logistics is a complex business supporting all aspects 
of the Department's supply chain. I understand that there are a number 
of focused efforts underway to strengthen the effectiveness of joint 
logistics and sustainment performance:

        <bullet> Integrating life cycle management principles into 
        acquisition and sustainment programs to provide better life 
        cycle reliability and materiel readiness for our weapons 
        systems and equipment.
        <bullet> Implementing programs to strengthen Supply Chain 
        Operations to include initiatives under the leadership of our 
        designated Distribution Process Owner, the United States 
        Transportation Command; as well as Continuous Process 
        Improvements such as the joint regional inventory management 
        initiative; and technology improvements, such use of RFID 
        technology.

    If confirmed, I intend to continue these efforts and seek to 
continue the trend of improved performance.

                         SCIENCE AND TECHNOLOGY

    Question. What, in your view, is the role and value of S&T programs 
in meeting the Department's transformation goals and in confronting 
irregular, catastrophic, traditional and disruptive threats?
    Answer. Over the past 2 years, I have had the honor of being the 
DDR&E, the Department's Chief Technology Officer. In that role, I have 
been the spokesman for value of the Department's S&T program. I believe 
S&T is a vital element for modernizing and transforming the 
capabilities of the military forces. Through new capabilities brought 
about by the S&T program, we should enhance the Nation's capability to 
confront irregular, catastrophic, traditional, and disruptive threats. 
This past year, the DDR&E team brought forward a number of new programs 
specifically focused on enhancing our capabilities in these new threat 
areas. For instance, we are establishing a biometrics program to 
identify people; we are establishing a program to tag, track, and 
locate objects of interest; we established a program in human, social, 
cultural and behavioral modeling, among others. Each should deliver a 
capability to confront new world threats.
    Question. If confirmed, what direction will you provide regarding 
funding targets and priorities for the Department's long-term research 
efforts?
    Answer. Long-term research has been, and will continue to be, very 
important to maintaining a supply of new capabilities to our 
warfighters. Any funding targets or goals should be balanced against 
other department goals, so I can't give an absolute funding target for 
long-term research. As DDR&E, I strive to maintain and grow the basic 
research investment of the Department to provide new opportunities. If 
confirmed, maintaining and strengthening long-term research would be a 
goal.
    Question. What specific metrics would you use, if confirmed, to 
assess whether the Department is making adequate investments in its 
basic research programs?
    Answer. Under my direction, DOD has begun the assembly of a science 
and engineering investment database. A comprehensive database is the 
initial, key step to providing transparency across all organizations in 
the S&T enterprise and will form the baseline for future discussions. 
The database should give us a better picture of our enterprise 
investment in basic research and the ability to review and evaluate the 
degree of investment concentration in specific fields or technologies. 
By its very nature, the output of basic research is difficult to track. 
In general, basic research output can be measured in at least three 
areas: (1) New knowledge--publications in reference journals, (2) 
Intellectual capital--students supported, degrees awarded, (3) Tech 
transitions--new knowledge (scientific findings) picked up in 
technology and development programs by the Services and industry. One 
overarching goal is to ensure organizations funded by DOD and the 
broader research community possess an understanding of our missions and 
their technological areas of need. However, I believe we must move 
beyond these traditional measures and identify relevant metrics to 
ensure adequate investment in basic research.
    Question. Do you feel that there is sufficient coordination between 
and among the S&T programs of the military Services and defense 
agencies?
    Answer. During my tenure as the DDR&E, we instituted a new process, 
which we call Reliance 21, to improve the coordination between the 
military Services and departments. This new process was developed with 
the S&T executives of all the components. The DOD's S&T stakeholders 
instituted this change to improve the coordination and collaboration 
among the components. The Reliance 21 process will improve 
coordination, but we need to let the process mature before we determine 
if it is sufficient. The DDR&E team has also instituted a detailed 
database to catalogue and make available details on the S&T program 
across the department--again, this is a work in progress, but 
highlights that I believe the enterprise has an opportunity to more 
efficiently and effectively coordinate S&T projects and investments.
    Question. The DDR&E has been designated as the Chief Technology 
Officer of the DOD.
    In your view, what is the appropriate role of the Chief Technology 
Officer of the DOD?
    Answer. I believe the Chief Technology Officer should provide the 
Secretary of Defense, Deputy Secretary and Under Secretary for 
Acquisition, Technology and Logistics advice on the ``state of the 
art'' in militarily relevant technologies and oversee the planning 
execution of a balanced, coordinated and proactive DOD S&T program.

               DEFENSE ADVANCED RESEARCH PROJECTS AGENCY

    Question. In your view, does the Director of the Defense Advanced 
Research Projects Agency (DARPA) report to the DDR&E?
    Answer. Organizationally, the Director of DARPA reports to the 
DDR&E. I believe it is essential for the Director of DARPA to report to 
the DDR&E in order to permit the DDR&E to meet his or her 
responsibilities as the Chief Technology Officer.
    Question. In your view, has the authority provided by section 1101 
of the National Defense Authorization Act for Fiscal Year 1999 been 
used appropriately and effectively by DARPA to attract and retain a 
highly qualified technical workforce?
    Answer. DARPA's implementation of the section 1101 authority has 
been an unqualified success. In fact, the Department modeled the Highly 
Qualified Expert program based on DARPA's authority and its success 
with it. DARPA has been able to attract and retain highly qualified 
technical experts for limited term appointments. The ability to hire 
these technical experts on limited terms, expeditiously and more 
comparably and competitively with industry standards, that continues to 
make this program successful. For example, under this authority, DARPA 
has been able to make an employment offer and have the program manager 
report for duty in as few as 6 working days. It would be helpful to be 
able to exercise these authorities more broadly throughout the DOD.
    Question. Do you see the need for any changes in section 1101?
    Answer. I understand that DARPA's management of 1101 program has 
gone very well over the years. I am not aware of any need for changes 
at this time.
    Question. In your view, does DARPA's current program strike an 
appropriate balance between investments in near-term technology 
programs that are directly tied to current battlefield needs and 
investments in longer-term research efforts that seek to develop future 
capabilities? Should DARPA be focused principally on longer-term 
threats and capabilities?
    Answer. DARPA remains a vital element of the overall DOD research 
and engineering program, and the Department's overall modernization and 
transformation efforts. I do not believe that DARPA should be 
exclusively focused on longer-term threats and capabilities. Technology 
development and maturation follows different models, some of which are 
integrated from far-term to near-term to fielding prototypes. It is 
reasonable for DARPA to be engaged in technologies at different levels 
of maturity. I believe the hallmark of DARPA should continue to be a 
focus on higher risk activity.

                         TECHNOLOGY TRANSITION

    Question. The Department's efforts to quickly transition 
technologies to the warfighter have yielded important results in the 
last few years. Challenges remain to institutionalizing the transition 
of new technologies into existing programs of record and major weapons 
systems and platforms.
    What impediments to technology transition do you see within the 
Department?
    Answer. The primary challenge that impedes technology transition is 
the lack of early and frequent interaction between the S&T and 
acquisition communities in an effort to create windows of opportunity 
for insertion of mature technology and to support proper and timely 
budgeting. Our current budget processes limit our flexibility to 
reallocate funds, posing another impediment to the Department's 
opportunity to exploit and transition new technology. Finally, the 
growing aversion to risk in programs generates another impediment to 
technology transition. The military departments and agencies have made 
improvements in early planning and investing for technology transition, 
accelerating the movement of capabilities to the warfighter, and 
initiating mechanisms for bridge funding. The Department, needs to 
develop effective, strategic approaches to technology transition, 
particularly for uniquely joint and transformational capabilities.
    Additionally, taking advantage of the plethora of worldwide 
innovation to achieve superiority and affordability is at odds with the 
linear, deliberate nature of traditional military acquisitions. Our 
programmatic, budgeting and contracting practices often deter 
involvement of nontraditional businesses. I believe the Department 
should develop and implement a number of initiatives to improve 
outreach to, and participation by, these innovative, nontraditional 
suppliers.
    Question. What steps will you take, if confirmed, to enhance the 
effectiveness of technology transition efforts?
    Answer. As DDR&E, I have personally worked to advocate the 
transition of Advanced Concept Technology Demonstrations (ACTDs) and 
other S&T programs. I have also initiated process changes to enhance 
transition efforts. Further, I assigned the Assistant DUSD for 
Innovation and Technology Transition to assume the role of an advocate 
in a leadership position who is ``driving transition every day.'' If 
confirmed, I will continue to support the acquisition team and all 
viable initiatives to improve the DOD's access to, and adoption of, the 
best technology solutions from all sources.
    Question. What can be done from a budget, policy, and 
organizational standpoint to facilitate the transition of technologies 
from S&T programs into acquisition programs?
    Answer. From a budget perspective, I believe it is important for 
the DOD to have S&T funds which are generally available and can be 
flexibly used to transition successful technology developments. A 
breakthrough technology development can languish for 12-18 months 
waiting for the budget process to provide funds which support final 
development and utilization in a military system.
    From a policy perspective, I believe the DOD should return to some 
of the practices which were historically effective. Greater utilization 
of prototypes offers the opportunity to mature technology, demonstrate 
the technology's potential to acquisition and operational personnel, 
enhance the management and systems engineering skills of our work 
force, and allow a lower risk SDD phase. Most importantly, such 
prototyping efforts would provide a useful tool for attracting 
scientist and engineers into the defense acquisition workforce and for 
inspiring our Nation's young people to pursue careers in science and 
engineering.
    I am not aware of significant organizational issues or impediments 
at this time.
    Question. Do you believe that the Department's S&T organizations 
have the ability to carry technologies to higher levels of maturity 
before handing them off to acquisition programs?
    Answer. DOD S&T organizations are very capable of maturing 
technologies. However, as has been noted for many years, there is 
sometimes a ``valley of death'' between technology development efforts 
and acquisition program receptors. Throughout DOD, there are many 
efforts to bridge this valley of death. I believe it is important to 
encourage such efforts.
    Question. Section 2359a(c) of title 10, U.S.C., requires the 
USD(AT&L) to carry out an initiative to facilitate the rapid transition 
of new technologies from S&T programs into acquisition programs and to 
designate a senior official of the Department to manage this 
initiative.
    If confirmed, would you expect to appoint a single technology 
transition advocate who would be responsible for promoting technology 
transition throughout the Department?
    Answer. As DDR&E, I have asked the Assistant DUSD for Innovation 
and Technology Transition to lead efforts to drive technology 
transition every day. If confirmed, I will carefully evaluate 
additional opportunities and initiatives that can support the 
transition of technology to the warfighter.

                          TEST AND EVALUATION

    Question. The Department has, on occasion, been criticized for 
failing to adequately test its major weapon systems before these 
systems are put into production.
    What are your views about the degree of independence needed by the 
Director of Operational Test and Evaluation (DOT&E) in ensuring the 
success of the Department's acquisition programs?
    Answer. In general, I believe an independent DOT&E is critical to 
ensuring the Department's acquisition programs are realistically and 
adequately tested in their intended operational environment. If 
confirmed, I will seek the advice of the DOT&E on testing and 
evaluation issues.
    Question. Are you concerned with the level of test and evaluation 
conducted by the contractors who are developing the systems to be 
tested?
    Answer. In general, I believe contractors are an important and 
integral part of the test and evaluation process during system 
development. If confirmed, I will evaluate this area and expect to 
place greater emphasis on coordinating and integrating Contractor Test, 
Developmental Test, and Operational Test and Evaluation.
    Question. What is the impact of rapid fielding requirements on the 
standard testing process?
    Answer. Rapid fielding requirements place greater stress on the 
entire acquisition team, including the test and evaluation community. 
Traditional test and evaluation processes and procedures may not be 
adequately responsive for rapid fielding efforts. My limited experience 
suggests that the test and evaluation teams have worked very hard and 
made necessary adjustments. I would cite the Mine Resistant Ambush 
Protected Vehicle Program as a good example. If confirmed, I will work 
with all stakeholders to ensure testing processes appropriately support 
rapid fielding without delaying our response to these urgent 
requirements.
    Question. If confirmed, how will you work to ensure that all 
equipment and technology that is deployed to warfighters is subject to 
appropriate operational testing?
    Answer. If confirmed, I will work closely with DOT&E on testing and 
evaluation issues.
    Question. The National Defense Authorization Act for Fiscal Year 
2003 included several provisions to improve the management of DOD test 
and evaluation facilities.
    Are you satisfied with the manner in which these provisions have 
been implemented?
    Answer. If confirmed, I will review the provisions and 
implementation status as necessary to determine any corrections needed.
    Question. Do you believe that the Department should take any 
additional steps to improve the management of its test and evaluation 
facilities?
    Answer. If confirmed, I will review this area as necessary to 
consider any additional steps to be taken to improve the management.
    Question. As systems grow more sophisticated, networked, and 
software-intensive, DOD's ability to test and evaluate them becomes 
more difficult. Some systems-of-systems cannot be tested as a whole 
until they are already bought and fielded.
    Are you concerned with DOD's ability to test these new types of 
systems?
    Answer. I do believe there are concerns regarding the complexity, 
range requirements, test equipment, and cost associated with systems of 
systems testing. I understand that the DOD has developed a Joint Test 
Roadmap which outlines an approach to link geographically distributed 
test facilities, laboratories and ranges to create more realistic test 
environments. If confirmed, I will work with all members of the 
acquisition and testing teams to ensure the DOD addresses these issues 
and to act on any valid recommendations.

            JOINT IMPROVISED EXPLOSIVE DEVICE DEFEAT OFFICE

    Question. What recommendations, if any, do you have for improving 
the way in which Joint Improvised Explosive Device Defeat Office 
(JIEDDO) is developing and transitioning improvised explosive device 
(IED) defeat technologies?
    Answer. I believe the key challenge confronting JIEDDO in the 
development and transition of technology is the institutional and 
budget issues which arise when an activity is predominantly and 
robustly funded by supplemental funds. Transitioning JIEDDO programs to 
Service and agency programs of record without clarity about the point 
of transition from supplemental to Service or agency budget funds 
probably presents the greatest challenge. I understand that JIEDDO is 
developing a detailed approach to transition JIEDDO sponsored IED 
Defeat technologies to programs of record. The JIEDDO approach 
addresses budgetary, oversight and long-term sustainment issues.
    As DDR&E, I have taken steps to include JIEDDO in the Defense 
Science and Technology Advisory Group (DSTAG) in an effort to create a 
common knowledge about technology efforts on IED defeat programs and to 
maintain a dialogue about responsibility and coordination on these 
efforts. I would advocate continuation of JIEDDO discussions in the 
DSTAG forum if confirmed.
    Question. Based on your observations as DDR&E, do you feel that the 
USD(AT&L) has the appropriate level of oversight and authority over 
critical JIEDDO technology development and acquisition programs?
    Answer. USD(AT&L) is closely linked to JIEDDO with representatives 
participating in weekly resource and technology meetings chaired by the 
JIEDDO. AT&L is also a member of the steering group that provides 
oversight of major counter IED initiatives.
    Question. In your view, is JIEDDO sufficiently aware of the S&T 
efforts of the Department and the Services so that promising 
technologies are rapidly identified and applied to the threat of 
Improvised Explosive Devices (IEDs)?
    Answer. Through a series of meetings that occurred earlier this 
year, JIEDDO provided to DDR&E an extensive overview of their entire 
S&T program plus other focus areas including threats and current 
projects. These discussions included counter IED programs and focus 
areas to better defeat the medium- and long-term IED threat. Since 
these meetings, I have taken steps to include JIEDDO in the DSTAG in an 
effort to create a common knowledge about technology efforts on IED 
defeat programs and to maintain a dialogue about responsibility and 
coordination on these efforts. JIEDDO has full access to the S&T 
programs and initiatives of the Department's RDT&E organization 
including those of the Services, DARPA, and defense agencies.

                       BALLISTIC MISSILE DEFENSE

    Question. Section 234 of the Ronald W. Reagan National Defense 
Authorization Act for Fiscal Year 2005 requires operationally realistic 
testing of each block of the Ballistic Missile Defense System (BMDS).
    Do you believe that in order to perform its intended function 
successfully the BMDS, including each of its elements, needs to be 
operationally effective?
    Answer. Clearly, each element of the BMDS and the overall system 
must be operationally effective in order to successfully perform the 
intended function.
    Question. Do you believe that the United States should deploy 
missile defense systems without regard to whether they are 
operationally effective?
    Answer. I do not believe that the United States should deploy 
missile defense systems without regard to whether they are 
operationally effective.
    Question. Do you believe that operationally realistic testing is 
necessary to demonstrate and determine the operational capabilities and 
limits of the BMDS and to improve its operational capability?
    Answer. I do believe that operationally realistic testing is 
necessary to delivering and maturing an effective BMDS.
    Question. If confirmed, what steps, if any, would you take to 
ensure that the BMDS, and each of its elements, undergoes operationally 
realistic testing?
    Answer. I understand that the MDA presently is executing a plan to 
expand the use of a Development/Operational Testing approach that 
allows the U.S. Strategic Command (STRATCOM) warfighter community 
(which represents all combatant commanders) and all the Service 
Operational Test Agencies to be an integral part of the test program. 
If confirmed, I would support this plan, and I would need to review 
these plans and the proposed test activities to determine whether 
additional steps are necessary or appropriate.
    Question. All Major Defense Acquisition Programs (MDAPs) are 
required to complete initial operational test and evaluation before 
going beyond low-rate initial production (LRIP). BMDS has not yet 
undergone initial operational test and evaluation.
    Do you believe that independent operational test and evaluation of 
the BMDS, and each of its elements, is necessary to ensure that the 
system and its elements are operationally effective and suitable for 
combat?
    Answer. I understand that the MDA currently conducts independent 
evaluations which have been and will continue to be a foundation of the 
MDA test program. I also understand that MDA seeks to include all 
service Operational Test Agencies, military utility assessment teams, 
and independent review teams in nearly all BMDS test events. I would 
have to review MDA test plans in greater detail in order to provide a 
personal perspective.
    Question. At what point, if any, do you believe independent test 
and evaluation of the BMDS, and each of its elements, should take 
place?
    Answer. I understand that it is MDA's policy to integrate 
independent test and evaluation into their test program early which 
gives them the ability to deliver capabilities and reduce cycle time, 
as promised. Since the BMDS is a complex and integrated system on a 
revolutionary scale, it seems appropriate to give full consideration to 
each individual element. MDA is working closely with DOT&E and the 
Services Operational Test Organization to accomplish independent test 
and evaluation for the BMDS and each independent element. I would have 
to review MDA test plans in greater detail in order to provide a 
personal perspective.
    Question. If confirmed, what steps, if any, would you take to 
ensure that the BMDS and each of its elements undergoes independent 
operational test and evaluation?
    Answer. If confirmed, I will work with DOT&E to see what testing is 
planned and discuss any shortcomings identified by DOT&E. In some 
cases, such as theater assets, individual elements may add independent 
capabilities outside of the BMDS as a whole. In those cases, some 
degree of independent testing may be appropriate.
    Question. Congress has previously authorized the Secretary of 
Defense to use funds authorized and appropriated for RDT&E for the MDA 
for the fielding of ballistic missile defense capabilities.
    Are you aware of any other major defense acquisition programs on 
which the DOD is authorized to use RDT&E funds to field operational 
systems?
    Answer. Satellites and their ground control systems such as Space-
Based Infrared Radar System, National Polar-Orbiting Operational 
Environmental Satellite System, and Advanced Extremely High Frequency 
provide recent examples of DOD using RDT&E in Major Defense Acquisition 
Programs to field initial operational capabilities. I am also aware of 
the funding of the first two LCS ships using RDT&E funds.
    Question. What, in your view, would be the positive and negative 
implications of requiring the MDA to budget RDT&E funds for RDT&E 
purposes, procurement funds for procurement purposes, operation and 
maintenance funds for operation and maintenance purposes, and military 
construction funds for military construction purposes?
    Answer. Some have argued that improved transparency, 
accountability, and oversight would result from this budgeting 
requirement. However, the MDA organization believes they have had a 
successful track record of delivering capabilities quickly because the 
agency was granted the flexibility to use RDT&E funds for procurement, 
O&M, and construction activities.
    Question. Section 223 of the John Warner National Defense 
Authorization Act for Fiscal Year 2007 establishes that ``it is the 
policy of the United States that the DOD accord a priority within the 
missile defense program to the development, testing, fielding and 
improvement of effective near-term missile defense capabilities, 
including the ground-based midcourse defense system, the Aegis BMDS, 
the Patriot PAC-3 system, the Terminal High Altitude Area Defense 
system, and the sensors necessary to support such systems.''
    If confirmed, what steps would you take to ensure that the 
Department complies with this policy requirement in its acquisition of 
missile defense capabilities?
    Answer. The MDA organization believes that the Department is 
currently in compliance with this policy requirement. If confirmed, I 
am prepared to review in detail any committee concerns regarding 
compliance with this policy. If confirmed, I will also support 
continuation of this policy in large part through my chairmanship of 
the recently established Missile Defense Executive Board, which 
provides oversight of MDA's integrated requirements, acquisition, and 
budgeting processes.
    Question. On January 2, 2002, the Secretary of Defense set forth 
guidance and priorities for the Missile Defense Program. The Secretary 
directed that Ballistic Missile Defense (BMD) elements enter the formal 
DOD acquisition cycle at Milestone C, concurrent with transfer of 
service procurement responsibility, with the USD(AT&L) overseeing all 
service missile defense procurement activity.
    In your view, what principles should be applied in determining what 
BMD elements enter the DOD acquisition cycle at Milestone C?
    Answer. When a BMDS element is ready for transfer, the normal 
procedure would be for USD(AT&L) to establish product teams to support 
a Milestone C decision by the Defense Acquisition Board. Elements that 
have reached Milestone C will be subject to legal requirements under 
title 10 in accordance with the terms of the applicable statutes.
    Question. After these elements have entered Milestone C, to what 
extent should they be subject to legal requirements under title 10, 
U.S.C., associated with programs entering the Defense Acquisition 
System, e.g., 10 U.S.C. Sec. 2341, 2366, 2399, and 2433--2435?
    LRIP rates for traditional acquisition programs are established at 
Milestone B, but because the BMDS and its elements have not followed 
DOD's milestone process, no LRIP quantities have been established.
    In your view, how will those quantities be determined for those BMD 
elements entering Milestone C, pursuant to the Secretary's guidance?
    Answer. A reasonable and likely course of action would be for LRIP 
rates for any BMDS components that may in the future be reviewed at a 
Milestone C to be established by test requirements and quantities 
necessary to ramp up to full rate production. If confirmed, I would 
have to review the specific details of each program in order to 
establish my views on these issues.

                        NUCLEAR WEAPONS COUNCIL

    Question. If confirmed as USD(AT&L), you will chair the Nuclear 
Weapons Council (NWC).
    In your view, what are, or should be, the highest priorities of the 
NWC?
    Answer. The NWC's highest priority should be to insure that the 
Nation's current and future nuclear deterrent forces remain safe and 
effective.
    Question. What improvements, if any, do you believe should be made 
to the operations of the NWC?
    Answer. I would not suggest any immediate changes to the operations 
of the NWC at this time. If confirmed, I look forward to working with 
the members of the Council, Department of Energy, Joint Staff, 
OSD(Policy), and STRATCOM to identify any appropriate improvements.

                      CHEMICAL WEAPONS CONVENTION

    Question. There are significant problems with the management and 
implementation of the DOD chemical weapons demilitarization program. 
Congress has become increasingly concerned that the Department does not 
appear to be on track to eliminate its chemical weapons in accordance 
with the Chemical Weapons Convention timelines.
    What steps is the Department taking to ensure that the U.S. remains 
in compliance with its Treaty obligations for chemical weapons 
destruction?
    Answer. I understand that current estimates indicate that the 
United States will not meet the Chemical Weapons Convention's 
destruction deadline of April 29, 2012. The Department will continue to 
examine ways to accelerate chemical weapons destruction, while insuring 
the continued safety and security of the workers, communities and the 
environment.
    Question. Do you agree that the United States should make every 
effort to meet its treaty commitments, including its obligations under 
the Chemical Weapons Convention?
    Answer. Yes.
    Question. If confirmed, what steps would you take to move this 
effort forward?
    Answer. If confirmed, I would seek to ensure that:

          1. Appropriate resources are applied;
          2. Contract incentives are implemented; and
          3. Alternative approaches for the destruction of chemical 
        weapons are implemented where safe and affordable.

                        CHIEF MANAGEMENT OFFICER

    Question. The Comptroller General has strongly recommended that the 
DOD establish a new position of Chief Management Officer to address the 
many ``high-risk'' problems with the Department's systems and 
processes. Earlier this year, the Institute for Defense Analysis 
recommended that the Deputy Secretary of Defense be designated as the 
Department's Chief Management Officer, and that he have a full-time 
deputy, at a high level within the Department, to assist in that 
effort.
    What is your view of the recommendations of the Comptroller General 
and the Institute for Defense Analysis regarding a Chief Management 
Officer for the DOD?
    Answer. I concur with the Deputy Secretary of Defense's two 
previous statements to Congress about the creation of a Chief 
Management Officer. Those statements are a May 11, 2007 letter to the 
House and Senate Armed Services Committees and June 26, 2007 testimony 
before the House Armed Services Committee.

        <bullet> The business functions of the Department can not be 
        managed separately from its operational matters. A single full-
        scope Deputy Secretary is the best way to ensure that the 
        Department's business mission is aligned and integrated to 
        support the Department's warfighting mission.
        <bullet> I believe that new legislation regarding a Chief 
        Management Officer would impede rather than enhance 
        organizational effectiveness because an organization the size 
        of the Department needs to have a high degree of management 
        flexibility.
        <bullet> The key management issue to be addressed in the 
        Department is not the organizational structure as per se--
        rather, it is how to ensure integration among otherwise diverse 
        operations. If confirmed, I will work toward that end.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the USD(AT&L)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes, within the limits of my authority.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

                Questions Submitted by Senator Jack Reed

                          TEST AND EVALUATION

    1. Senator Reed. Mr. Young, in the National Defense Authorization 
Act for Fiscal Year 2007, Congress directed the Under Secretary of 
Defense for Acquisition, Technology, and Logistics (USD(AT&L)) and the 
Director of Operational Test and Evaluation to provide a report to 
Congress on ``Policies and Practices for Test and Evaluation.'' In July 
2007, Congress received this report. Additionally, an implementation 
policy was promised to Congress by December 2007. Which of the test and 
evaluation (T&E) principles described and proposed for consideration in 
the July 2007 report do you support?
    Mr. Young. Requirements generation, program management, and systems 
engineering (to include T&E), are three pillars the Department rests on 
to ensure we acquire weapon systems that bring needed combat capability 
to the warfighter. Earlier tester involvement with an operational focus 
and better integration of developmental and operational testing will 
enhance the ability of the Department to quickly field weapon systems 
that will meet the warfighter's needs. The specific policies to 
implement these principles are currently being staffed within the 
Department. If confirmed, I will work with all stakeholders to ensure 
these policies are reflected in the Department's acquisition 
regulations and implemented.

    2. Senator Reed. Mr. Young, which of the T&E principles do you not 
support and why?
    Mr. Young. In general, I believe all the fundamental principles 
described in the report have merit. As I affirmed in my previous 
response, the specifics to implement these principles are currently 
being staffed within the Department. If confirmed, I will work with all 
stakeholders to ensure the implementation of these policies.

    3. Senator Reed. Mr. Young, what steps are you planning to take to 
construct the implementation policy for T&E that, according to the 
report, ``will be reported to Congress no later than the end of 2007''?
    Mr. Young. Currently, AT&L's Developmental Test and Evaluation 
organization within the Directorate for Systems and Software 
Engineering is leading a working group consisting of members from 
Service and DOT&E organizations. This group is defining the specific 
policies which will then be incorporated in the appropriate Department 
of Defense (DOD) issuances and guidance documents. Separately, work is 
underway to update the Department's acquisition policy directive (DODD 
5000.2) to incorporate any new policy changes to include T&E. If 
confirmed, I will ensure the work continues to implement these policy 
changes.

                       CLARITY OF BUDGET REQUESTS

    4. Senator Reed. Mr. Young, Congress and the public depend on the 
DOD to accurately and completely describe its budget request and the 
program activities being proposed for funding using taxpayer dollars. 
The Government Accountability Office (GAO) recently found that ``DOD's 
research and development budget requests to Congress do not provide 
consistent, complete, and clear information.'' GAO made two specific 
recommendations on the submission of budget materials to Congress to 
address the issue, both revising the regulations that govern the 
process and more carefully overseeing the development of these budget 
materials. What is your assessment of the quality of the budget 
justification materials sent to Congress?
    Mr. Young. I believe the quality of budget justification materials 
sent to Congress is, in general, sufficient in detail and accuracy to 
allow informed decisionmaking. Also, the current formats used to 
justify our budget requests provide enough flexibility to enable us to 
describe programs that vary greatly in resources required, complexity, 
and scope. However, I also believe improvements can be made. The 
Department partially concurred with the GAO recommendations, noting 
that we have a disciplined review process in place and will put 
additional emphasis on proper reporting of program progress and planned 
efforts.

    5. Senator Reed. Mr. Young, what specific steps do you plan to take 
to improve the quality of the budget materials submitted to Congress?
    Mr. Young. If confirmed, I will work with the Under Secretary of 
Defense (Comptroller) to ensure budget justification documents are 
prepared and distributed in a timely manner, are a relevant and 
convenient source of information for Congress, and are consistent with 
the information used in the acquisition process. I will take steps to 
ensure I am engaged in potential resource and programmatic issues in 
time to allow me to be part of an informed decision making process 
during our budget development. I will also work to assure the 
Department provides Congress more complete and relevant descriptions 
and justifications for the resources we are requesting in our budget 
materials.

    6. Senator Reed. Mr. Young, do you plan to follow the specific 
recommendations of the GAO in this area?
    Mr. Young. GAO recommends the Secretary of Defense take several 
actions aimed at providing Congress with more clear and complete 
information on RDT&E funding requests. I support ensuring that Congress 
receives relevant, timely, and accurate information in support of the 
Department's budget request. If confirmed, I will take those 
recommendations into account and work with the Comptroller on possible 
implementation.

                   LAB PERSONNEL DEMONSTRATION ISSUES

    7. Senator Reed. Mr. Young, in response to concerns voiced by Jo 
Ann Davis, then Chair of the House Civil Service Subcommittee, that the 
defense laboratories were being denied the ability to improve their 
personnel demonstration programs, Deputy Secretary Gordon England, then 
head of the National Security Personnel System (NSPS) implementation 
group, assured the chairperson in an April 26, 2004, letter that these 
defense laboratories ``should be able to continue individually to 
refine and evolve their successfully tailored systems over the next 
several years if they determine that such adjustments are beneficial.''
    Likewise, in a July 2006 letter to then Senate Armed Services 
Committee Chairman John Warner, the Under Secretary for Personnel and 
Readiness (P&R), Dr. David Chu, and your immediate predecessor, the 
Under Secretary for AT&L, Kenneth Krieg, after lauding the performance 
of the demonstration laboratories further stated ``demonstration 
projects will continue to refine and evolve as indicated in the 
enclosed plan'' prior to any incorporation into the NSPS.
    I am concerned that these commitments to Congress have been 
ignored. Though the laboratories have worked to develop numerous 
substantive personnel flexibilities that could be used by the demo 
labs, none have been approved. In fact, in a memorandum for the record 
dated June 7, 2007, which reported on the meeting of officials from P&R 
and from AT&L, including your deputy for laboratories, a minor proposed 
laboratory amendment was denied stating the argument that ``the 
Department is not receptive to requests for amendments that propose no 
new interventions. The replication at an additional Software Technology 
Research Laboratory (STRL) (demo lab) location of an intervention 
previously implemented at another STRL location is not a new 
intervention. The Department is not likely to gain significant 
information from personnel innovations previously tested.''
    This seems to indicate that the Department is not interested in 
fulfilling Secretary England's commitment to Congress, and not 
interested in utilizing successful personnel authorities to address the 
Department's critical and growing technical workforce shortage. Do you 
support this policy of not sharing successful flexibilities among the 
demonstration labs?
    Mr. Young. If confirmed, I will work with the Under Secretary of 
Defense for P&R, who has the Department-wide lead in this matter, to 
create the optimum long-term situation for all the DOD laboratories.

    8. Senator Reed. Mr. Young, given the statements of Secretaries 
England and Krieg, why have there been no laboratory amendments 
approved by the Department since 2002?
    Mr. Young. To my knowledge, no requests for amendments have been 
submitted to test new personnel management interventions. This is 
consistent with the June 7, 2007 memorandum, which reported on the 
meeting of officials from Under Secretary for P&R and from former 
USD(AT&L), and our Report to Congress which states, ``Science and 
Technology Reinvention Laboratories will continue with their respective 
demo systems and will be allowed to seek innovative enhancements and 
refinements.'' that have not been previously tested.

    9. Senator Reed. Mr. Young, as Director of Defense Research and 
Engineering (DDR&E), and now as USD(AT&L), I understand that you are 
the DOD proponent for these laboratories. What have you done and what 
do you plan to do to implement the commitments made to Congress by Mr. 
Krieg and Mr. England?
    Mr. Young. As the DDR&E, it was the office of one of my direct 
reports, Deputy Under Secretary of Defense (DUSD) for Laboratories and 
Basic Sciences (LABS), which had the lead for AT&L on the July 2006 
letter sent to the Senate Armed Services Committee Chairman John Warner 
from the Under Secretary for Personnel and Readiness (USD(P&R)), Dr. 
David S.C. Chu, and the former USD(AT&L), Kenneth J. Krieg. I remain 
fully supportive of the views expressed in that letter and in my 
response to your earlier question regarding ``why have there been no 
laboratory amendments approved by the Department since 2002?''

    10. Senator Reed. Mr. Young, can you give the committee assurances 
that you will support the laboratories in their efforts to retain and 
enhance the laboratory demonstration programs?
    Mr. Young. To the extent authorized by my position, if confirmed by 
the committee, I will implement policies which engender the most 
favorable long-term circumstances for all the DOD laboratories.

        APPROVAL OF AMENDMENT ON SHARING EXISTING FLEXIBILITIES

    11. Senator Reed. Mr. Young, in May 2005, the DOD Office of 
Civilian Personnel Policy, within the Office of the USD(P&R), approved 
a laboratory personnel demonstration program amendment, which would 
permit each laboratory to utilize the flexibilities available at other 
demo laboratories. This approved amendment was sent to the Under 
Secretary for his approval. To date, almost a year and a half later, no 
action has been taken on this proposal. Do you support this proposal to 
allow approved flexibilities to be shared among the demo labs?
    Mr. Young. I support the conclusions of Dr. David S.C. Chu/
Honorable Kenneth J. Krieg Report to Congress. Consistent with that 
report and the June 7, 2007 memorandum that I mentioned previously, it 
is my understanding that the approval was not granted because the 
``innovative enhancements and refinements'' requested had been 
previously tested at one or more existing personnel demo lab locations.

    12. Senator Reed. Mr. Young, as the proponent for laboratory 
interests within the Pentagon, with the obligation to promote policies 
and initiatives which benefit the long-term research capabilities of 
these organizations, what actions have you taken during your tenure and 
what actions would you take as Under Secretary to ensure that this 
proposal is approved and executed?
    Mr. Young. If confirmed, I will remain a strong supporter of all 
policies which fashion the best possible long-term condition for all 
DOD laboratories.

              STRATEGIC AND TACTICAL ACQUISITION PLANNING

    13. Senator Reed. Mr. Young, experts believe that successful 
industrial companies managing complex operations have learned that 
strategic plans provide the basis for a process that quickly and cost-
effectively serves their customer's needs with high-quality products. 
They suggest that if DOD were to use an equivalent method, it would 
manage its acquisition and science and technology (S&T) investments 
using an overall strategic plan that is: (1) based on projected 
capability needs of the combatant commanders; (2) vetted and 
prioritized by authorities motivated primarily by joint, rather than 
Service-specific, objectives; (3) budgeted according to those 
priorities; and (4) backed up by detailed visions of the hardware, 
software, and new doctrine required to realize each capability.
    This plan would then be extended to generate a tactical action plan 
that describes technical requirements and milestones, schedules, future 
spending, and integrated Service and Defense Agency responsibilities 
for executing each element. In this model, the Secretary and the Under 
Secretary for AT&L would manage operations by periodically reviewing 
progress on the tactical action plans and making necessary adjustments.
    Do you see merit in moving DOD towards an acquisition and S&T 
development process based on an industrial model that has a strategic 
plan that leads to tactical action plans?
    Mr. Young. As evidenced by the DOD Research and Engineering 
Strategic Plan, published in the summer of 2007, I believe there is a 
need, in some cases, for strategic plans to be aligned with the 
National Security Strategy, the Quadrennial Defense Review, and the 
needs of the combatant commanders. From a broader perspective, members 
of the AT&L communities are deeply integrated in the development of the 
``Guide to the Development of the Force'' (GDF) formerly known as the 
DOD Strategic Planning Guidance. The GDF will be the overarching 
framework that should align the Department's requirements and 
capabilities with acquisition programs and resources. At a next level 
of detail, I have been an advocate for the development of roadmaps in 
selected technology and portfolio areas as key tools for guiding DOD 
investment programs.

    14. Senator Reed. Mr. Young, what steps do you plan to take to move 
towards that model?
    Mr. Young. Within the AT&L components, we are refining a series of 
internal goals to link the acquisition enterprise to the strategic 
national security priorities. It is my intention, if confirmed, to move 
toward a more open, data-driven process for decisionmaking linked to 
national security and DOD objectives. The internal goals should help us 
do so.

    15. Senator Reed. Mr. Young, do you believe that the Office of the 
Secretary of Defense (OSD) should serve in the corporate management 
role in the acquisition and S&T development process by actively 
reviewing and if necessary, redirecting ongoing DOD programs?
    Mr. Young. The USD(AT&L) serves as the Defense Acquisition 
Executive within the DOD. Part of this responsibility is to acquire the 
best possible weapons systems for the best possible price, and to do so 
absolutely should involve directing program changes as required to 
attain this ``best value.''

    16. Senator Reed. Mr. Young, do you believe that the Reliance 21 
initiatives you established as DDR&E should evolve into a process with 
the industrial model's level of follow-through, management control, and 
the necessary Service and agency commitment and cooperation? If so, 
what barriers exist which would prevent the process from developing 
into that type of activity, and what actions will you take to overcome 
them?
    Mr. Young. We instituted the Reliance 21 model for Defense S&T 
planning to increase the corporate level visibility, inter-dependency, 
and cooperation among the DOD components. Since we began the Reliance 
21 process only last spring, it is premature to speculate on barriers 
to the evolution of the model. To date, it seems to be working well, 
but I believe more time is needed to really determine barriers to 
complete implementation. However, it is clear to me that current DOD 
programming and budgeting processes do present at least a hurdle for 
the service official's proper resourcing of A&T plans and these hurdles 
are even higher for the DDR&E team working at the corporate level.

 ROLES AND AUTHORITIES OF DIRECTOR OF DEFENSE RESEARCH AND ENGINEERING

    17. Senator Reed. Mr. Young, do you believe there should be any 
changes made to the roles, authorities, or resources of the DDR&E?
    Mr. Young. I believe the roles and authorities for the DDR&E are 
sufficient at this time. Resources such as funding for programs and 
people are balanced across Department-wide needs. I do have concerns 
that the assignment of additional missions and oversight 
responsibilities to DDR&E have not included additional experienced 
personnel to execute these functions.

    18. Senator Reed. Mr. Young, in the industrial sector, the Chief 
Technology Officer (CTO) reports directly to the Chief Executive 
Officer (CEO). The DDR&E has been designated as the CTO of the 
Department. Do you think the Department would be better served by 
having DDR&E report directly to the Secretary for Defense as opposed to 
the Under Secretary for AT&L?
    Mr. Young. I believe the reporting chain for the DDR&E is 
appropriate. The DDR&E, as the CTO also does have direct access to the 
Secretary of Defense.

               DEFENSE ADVANCED RESEARCH PROJECTS AGENCY

    19. Senator Reed. Mr. Young, in your answers to advance policy 
questions you indicated that ``it is essential for the Director of 
Defense Advanced Research Projects Agency (DARPA) to report to the 
DDR&E in order to meet responsibilities as CTO.'' How should the fact 
that the Director of DARPA reports to DDR&E be operationalized?
    Mr. Young. In fact, the Director of DARPA does report to the DDR&E. 
This reporting relationship is specified in DOD Directive 5134.3, 
Director of Defense Research and Engineering where it clearly states 
the DDR&E exercises authority, direction, and control over the Director 
of the DARPA. It is important to maintain this organizational structure 
and to ensure the DDR&E leadership team has full visibility and 
appropriate participation in DARPA activities. No other actions are 
needed.

    20. Senator Reed. Mr. Young, based on your observations as DDR&E, 
do you believe that DDR&E is currently exercising adequate authority 
over DARPA?
    Mr. Young. As DDR&E, I have made concrete progress in exercising 
DDR&E authorities and responsibilities with regard to DARPA.

                        DEFENSE INDUSTRIAL BASE

    21. Senator Reed. Mr. Young, what steps do you plan to take to 
limit the risks that the Department accepts through the acquisition of 
critical defense technologies, such as integrated circuits, from 
offshore vendors?
    Mr. Young. The Department is committed to providing the best 
capability to the warfighter. We want to promote interoperability with 
our allies and coalition partners, and take full advantage of the 
benefits offered by access to the most innovative, efficient, and 
competitive suppliers--worldwide. The Department also wants to promote 
consistency and fairness in dealing with its trading partners, an 
important national security consideration in itself, while assuring 
that the U.S. defense industrial base is sufficient to meet critical 
defense needs. Consequently, the Department is willing to use reliable, 
non-U.S. suppliers--consistent with national security requirements and 
prudent risk management--when such use offers comparative advantages in 
performance, cost, schedule, or coalition warfighting.
    The Department is not acquiring military materiel produced overseas 
to the detriment of national security or the U.S. defense industrial 
base. The Department employs a small number of non-U.S. suppliers, and 
the use of those suppliers does not introduce an unacceptable risk of 
foreign vulnerability or negatively impact the long-term economic 
viability of the national technological and industrial base. The record 
indicates there has been no difference in reliability between the 
Department's U.S. and non-U.S. suppliers. For example, the Study on 
Impact of Foreign Sourcing of Systems conducted by the Office of the 
Under Secretary of Defense for Industrial Policy, a focused analysis of 
12 operationally important DOD programs completed in January 2004, 
indicated that foreign subcontracts collectively represented only about 
4.3 percent of the total contract value for those programs. We are 
planning to conduct another focused subcontractor study in 2008 to 
reexamine the extent of non-U.S. suppliers in our supply chain.
    With regard to integrated circuits, these and related electronic 
devices are increasingly dominated by global commercial markets. 
Current commercial product development strategies and supply-chain 
management practices may not, for DOD-purposes, adequately prevent 
electronic device tampering, counterfeiting, and reverse engineering, 
nor do they always adequately meet unique DOD performance and 
maintainability requirements. In the early days of the semiconductor 
industry, the military market was a large fraction of overall sales and 
helped to drive technology. Today, the U.S. military portion of 
microcircuits sales is approximately 1 percent of the world market and 
less than 9 percent of the U.S. market ($3.6 billion out of $40.7 
billion). With the increased growth of consumer markets, the DOD's 
ability to control and influence the electronics sector has diminished. 
Nevertheless, DOD is in the process of developing a trusted integrated 
circuits strategy and policy that is comprehensive, viable, cost-
effective, realistic, and in the long-term ensures the supply of 
trusted integrated circuits for sensitive defense applications.
    This policy will include multi-layered defense-in-depth as a 
practical strategy that involves people, technology, and operations; 
anonymity in commercial off-the-shelf-integrated circuits procurement; 
trusted suppliers, brokers, and products; design information 
protection; anti-tamper technology; failure detection and forensics; 
damage mitigation; and chip signature authentication.

    22. Senator Reed. Mr. Young, what specific initiatives are you 
considering that will support the strengthening of the defense 
industrial base?
    Mr. Young. The Department's preferred approach to establishing and 
sustaining essential industrial and technological capabilities 
supporting defense is to leverage its research, development, 
acquisition, and logistics processes and decisions to create a 
competitive environment that encourages industry to make sound 
technology development investments, and to make sound technology 
insertion and production facility/capacity decisions.
    When these market forces are insufficient, the Department can use 
Defense Production Act (DPA) tools to focus industry attention on 
critical technology development, accelerate technology insertion into 
manufacturing processes, create or expand critical production 
facilities, and direct production capacity towards meeting the most 
urgent warfighter needs. Title III of the DPA is specifically designed 
to establish, expand, maintain, or modernize industrial capabilities 
required for national defense. The Title III Program strengthens the 
economic and technological competitiveness of the U.S. defense 
industrial base, accelerates the transition of technologies from 
research and development to affordable production and insertion into 
defense systems, and can reduce U.S. dependency on foreign sources of 
supply for critical materials and technologies.
    For example, the Department is using the Title III Program to 
sustain a U.S. production capability for high purity beryllium. High 
purity beryllium possesses unique properties that make it indispensable 
in many of today's critical U.S. defense systems, including sensors, 
missiles and satellites, avionics, and nuclear weapons. The DOD 
dominates the market for high purity beryllium and its active and full 
involvement is necessary to sustain and shape the strategic direction 
of the market. There are no reliable foreign suppliers that could 
provide high purity beryllium, and without DOD involvement and support, 
U.S. industry would not be able to provide sufficiently pure material 
in the required quantities for defense applications. The Department has 
therefore taken special action to maintain a domestic supply, and is 
using the authorities in Title III of the DPA to contract with a U.S. 
firm to build and operate a new high purity beryllium production plant 
capable of meeting national security specifications. I think we should 
look at fully utilizing the authorities in Title III and work with 
Congress if we identify needs for additional authorities.

             INDIRECT COSTS FOR UNIVERSITY DEFENSE RESEARCH

    23. Senator Reed. Mr. Young, the House Defense Appropriations bill 
includes language that limits the rate that a university can charge the 
government for indirect, overhead costs related to the performance 
basic research activities. The university community is very strongly 
opposed to this provision. What is your position on the provision?
    Mr. Young. University indirect costs are analyzed and indirect cost 
rates negotiated to ensure these rates reflect the fair and reasonable 
total cost of conducting research at these institutions. Consistent 
with the Statement of Administration Policy on the House version of 
H.R. 3222 and the Department's appeal to the appropriations conference, 
I am opposed to the language imposing artificial, arbitrary caps on 
indirect costs of basic research. A cap will likely lead some research 
organizations to forego DOD basic research awards and accept support 
only from other agencies and non-Federal sponsors, thus reducing DOD 
access to world-class research needed to maintain the future 
technological superiority of the U.S. military.

    24. Senator Reed. Mr. Young, how do you intend to monitor and 
control the indirect costs of research performed by contractors in 
industry and academia so that government research programs are as 
efficient and effective as possible?
    Mr. Young. Based upon what I know today, the process for 
negotiating a research organization's indirect cost rate involves a 
substantial amount of monitoring and oversight of those costs. The 
process includes scrutiny of the organization's rate proposal by 
Federal agency negotiators who are contracting and accounting 
professionals. Where DOD is the Federal agency designated by the Office 
of Management and Budget to negotiate the government-wide rate at an 
organization, the indirect cost proposal also is audited. In addition, 
each research organization is required to disclose to the Government 
its accounting practices that are used to ensure consistent and 
appropriate charging of costs to Federal awards. Any change in an 
organization's disclosed practices must be approved by the responsible 
Federal agency. If confirmed, I will review and evaluate this area as 
appropriate.

           FEDERALLY FUNDED RESEARCH AND DEVELOPMENT CENTERS

    25. Senator Reed. Mr. Young, do you believe these ``ceilings'' on 
the amount of work a Federally Funded Research and Development Centers 
(FFRDC) can perform for DOD are in the best interests of the 
Department?
    Mr. Young. The Department has always opposed the continuation of 
the externally imposed ceilings on the use of its FFRDCs. Each fiscal 
year the Department identifies a need for FFRDC assistance to meet its 
high quality contracted technical and analytical support for key 
programs, including intelligence, space systems, command and control, 
homeland defense, war on terrorism, and other areas where advanced 
technologies are being bought to bear in support of the modernizing and 
transforming United States Forces. The Department does not have enough 
of the technical expertise in-house and relies on its FFRDCs to provide 
high quality, bias-free analysis, systems engineering and other 
technical support for its weapons and technology programs.
    Military leadership also depends on the objective, independent 
research performed by their FFRDCs as cornerstones for important 
planning and investment decisions, yet not only does the Department 
have an overall external imposed ceiling on its use of FFRDCs there is 
also a sub-ceiling placed on its studies and analysis FFRDCs which 
provide this support. With the uncertainties and dynamics of the 
current world situation, there are more unknowns, therefore the 
Department needs reliable quick turnaround independent evaluations and 
recommendations for decisions. The return on investment by using the 
FFRDCs is high.

    26. Senator Reed. Mr. Young, what advantages does the Department 
accrue from the ``ceilings''?
    Mr. Young. The Department sees no advantages by having external 
ceilings placed on its use of its FFRDCs. Each fiscal year the 
Department has experiences shortfalls in its need for assistance and 
support from its FFRDCs. The impact of the shortfalls is felt across 
the Department and over the years as national priorities changes 
different programs suffered.
    Congress continues to provide additional funding for the global war 
on terror, homeland security, space systems, missile defense, but 
limits the Department's ability to select some of the most qualified 
sources to obtain the needed high-quality technical and analytical 
support. The significant, externally imposed restrictions on the 
Department's use of its FFRDC in the 1990s have seen some relief in the 
last few years but the FFRDCs are only at the fiscal year 1991 FFRDC 
support levels.
    The Department has previously urged Congress to support its request 
that it be allowed to manage its FFRDCs without externally imposed 
ceilings. If ceilings are to be continued, the Department would urge 
support of its annual request for FFRDC support as contained in the 
President's budget.

    27. Senator Reed. Mr. Young, what steps do you plan to take to 
ensure that the Department has the access it needs to the technical 
expertise resident in the FFRDCs?
    Mr. Young. Access to very specialized, unique, and unbiased 
technical expertise is a primary reason for our FFRDCs and is, thus, 
the center of a great deal of attention in our management of our use of 
these institutions. The first step, and most important in the short 
term, we are pursuing is creating tasks that bring FFRDC technical 
talent to the very front lines of the global war on terrorism 
operations by employing their tools and expertise in direct support of 
real-time operational needs. The enthusiasm exhibited by FFRDC 
personnel in working to directly support our operations, and its 
utility to field commanders, is a testament to the effectiveness of 
this initiative. From a researcher's point of view, there are other 
steps as well: we work hard to maintain an environment such that our 
FFRDC contractors can maintain continuity of employment so academics 
need not devote constant attention to ``grantsmanship''; we provide 
discretionary Independent Research and Development (IR&D) resources at 
each FFRDC to pursue high-value, defense-relevant, intellectually 
challenging, projects; and we minimize the bureaucratic impediments 
associated with access to sensitive or proprietary data that 
researchers experience in the private or academic sectors. Overall, we 
try and foster an environment in which creative intellects--that may 
not be attracted to government service for a variety of reasons--can 
most effectively be employed in exploiting sophisticated, cutting-edge, 
technologies for our defense needs.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                            LOGCAP CONTRACTS

    28. Senator Akaka. Mr. Young, one of the responsibilities of the 
USD(AT&L) is to ensure that DOD employs the appropriate procurement 
type for its contracts. As the chairman of the Subcommittee on 
Readiness and Management Support, I have been particularly concerned 
about the appropriateness of DOD's wide-spread use of the war as a 
justification to issue long-term, sole-source contracts. The Special 
Inspector General for Iraq Reconstruction (SIGIR) has recommended that 
the Federal Government should ``generally avoid the use of sole-source 
and limited-competition contracting actions.'' Under what circumstances 
would you consider it appropriate for a logistics support contract, 
such as Kellogg, Brown, and Root's (KBR) Logistics Civil Augmentation 
Program (LOGCAP) contract, to be awarded as a sole-source, cost-plus 
award fee, long-term contract?
    Mr. Young. KBR's LOGCAP III contract was not a sole-source 
contract. This current LOGCAP III contract was competitively awarded in 
December 2001. KBR was selected as the best value contractor from among 
three competitive offerors.
    Based on the LOGCAP II experience, where the volume of requirements 
(that is, $50 million) from 1996 to 2001 did not support the use of 
multiple contract awards, we did not pursue a multiple-award scenario 
for LOGCAP III. For LOGCAP IV, the Defense Department chose to use a 
multiple-award strategy based on the volume of requirements that we 
have experienced under Operation Enduring Freedom and Operation Iraqi 
Freedom.

    29. Senator Akaka. Mr. Young, would you consider it appropriate to 
allow the duration of such a contract to extend beyond the amount of 
time necessary to replace it with a contract that was awarded through 
open competition?
    Mr. Young. To provide continuity in the delivery of required 
services, the Department endeavors to put a new contract in place by 
the time the predecessor contract is due to expire. When this is not 
possible, the contracting officer must determine the best way to 
provide for continued performance of necessary work pending the 
availability of a new contract.
    For example, the LOGCAP III contract, competitively awarded in 
December 2001, was structured as a 1 year base contract, with nine 1 
year options. It was structured intentionally to allow for rapid growth 
and flexibility to support unknown future contingencies. As the program 
grew and began to strain the resources of a single contractor, the Army 
took action to identify various methods of increasing contractor 
support and to assess the risks involved with various strategies to 
satisfy the breadth and depth of the program's requirements. The result 
was an acquisition strategy for LOGCAP support with multiple 
contractors competitively responding to global requirements for urgent 
support. The final strategy, determined in 2006, consists of a separate 
LOGCAP IV support contract and multiple LOGCAP IV performance 
contracts.

    30. Senator Akaka. Mr. Young, cost-plus award fee (CPAF) contracts 
give little incentive to the contractor to keep costs low since there 
is no risk to the contractor, and the award fee is based on contract 
costs: the higher the costs, the greater the profit. In your opinion, 
is this type of LOGCAP contract structure the best value for the 
American taxpayer given the contractor's operating environment in Iraq, 
or would you have structured the contract differently?
    Mr. Young. The LOGCAP III contract has a variety of payment 
provisions, including firm fixed price (FFP) that can be used when 
there are firm requirements that are not susceptible to changes in 
scope, quantity or schedule. It also includes CPAF provisions, which 
are most appropriate when uncertainties in performance and cost do not 
allow for fixed price contracting but incentivizing contractor 
performance is still desired.
    The largest volume of effort under the LOGCAP III contract for 
performance in Southwest Asia has been CPAF. In Iraq and Afghanistan, 
the Army determined that the uncertainties of performance conditions 
and constant change have not supported the use of FFP contracts.
    I would have to review the requirements and circumstances to 
determine whether this is the optimal contract structure in my opinion. 
I think we would need to apply strong management oversight to a 
contract with a significant CPAF value.

                            CONTRACTOR ABUSE

    31. Senator Akaka. Mr. Young, DOD's budget, although large, is 
still finite. As such, DOD contracting officials need to be good 
stewards of the resources they are given. Every dollar wasted is a 
dollar that could have been better spent on resetting equipment, 
procuring new technologies, or caring for our wounded warriors. Yet DOD 
contracting in Iraq has many problems leading to numerous examples of 
waste, fraud, and abuse that have been identified by the SIGIR, GAO, 
and other audit/oversight agencies. The SIGIR's findings characterize 
the LOGCAP contract in Iraq as lacking transparency, oversight, and 
financial accountability, and his findings included cases of waste, 
fraud, abuse, and financial mismanagement.
    For instance, SIGIR auditors found that KBR had repeatedly 
overcharged the government by billing for work that it did not perform, 
and paid suppliers more than amounts owed. Overhead expenses for such 
activities as transportation, security, and office support ranged from 
11 percent to as high as 55 percent of the contract value, and were 
billed to reconstruction contracts by KBR. If confirmed, what actions 
will you recommend DOD take to prevent contractor abuses such as these?
    Mr. Young. I recently directed that all DOD contracting officers 
must ensure that, prior to contract award, all statements of work and 
terms and conditions that relate to the delivery of supplies or 
services in or out of Iraq and Afghanistan must be approved by the 
Commander, Joint Contracting Command Iraq/Afghanistan (JCC-I/A). I also 
directed that JCC-I/A must be assigned contract administration 
responsibility for the portion of the contract that relates to 
performance in Iraq and Afghanistan. The Director of Defense 
Procurement and Acquisition Policy, in coordination with JCC-I/A and 
the Joint Staff, is issuing implementing guidance. I believe these are 
strong steps toward improving oversight.
    Pursuant to section 813 of the National Defense Authorization Act 
for Fiscal Year 2007, the Deputy Under Secretary of Defense 
(Acquisition and Technology) is chairing a panel on contracting 
integrity. The panel includes a subcommittee to address contracting 
integrity in a combat/contingency environment. Their initial report is 
due to Congress in December 2007.

    32. Senator Akaka. Mr. Young, GAO provided an analysis of 93 award-
or-incentive-fee contracts awarded by DOD, and found that DOD 
frequently paid most of the available award fees, regardless of whether 
the contractor fell short of, met, or exceeded expectations. DOD 
allowed contractors second chances to earn ``initially unearned'' or 
deferred award fees, and paid a significant number and amount of fees 
for performance that was judged to be ``acceptable, average, expected, 
good, or satisfactory.'' GAO concluded that despite the fact that DOD 
paid billions in award fees, DOD has little evidence to support its 
contention that the payment of award fees improved contractor 
performance. It appears that DOD's process for determining how much of 
an award-fee or incentive-fee a contractor has earned is not 
functioning properly in Iraq. If confirmed, how do you intend to 
address the problem of overpayment of fees?
    Mr. Young. As the Assistant Secretary of the Navy, I issued three 
memoranda on profit policy. I believe strongly that the Defense 
Department must carefully use award and incentive fees as tools to 
motivate successful program execution. I further believe that program 
managers should award fees in proportion to performance. In general, I 
believe the Defense Department should tie award fees to specific events 
and deliverables to make this a more objective process. If confirmed, I 
intend to push for the application of these principles in all 
acquisition programs.
    The Department has taken actions to address each of the seven 
recommendations made by the GAO report that you reference and all of 
the related requirements of section 814 of the National Defense 
Authorization Act for Fiscal Year 2007. These actions include:

          (1) Issuing several policy memoranda providing revised 
        guidance to the military departments and defense agencies on 
        the use of award and incentive fees;
          (2) Drafting revisions of the Defense Federal Acquisition 
        Regulation Supplement to incorporate this revised policy into 
        its regulations;
          (3) Employing a FFRDC to assess various mechanisms for 
        evaluating contractor performance and making payment of award 
        fees;
          (4) Assessing the results of that study, and the Department 
        plans to take appropriate action;
          (5) Working to develop an automated process that will improve 
        its collection and assessment of relevant data on award and 
        incentive fees paid to contractors.

    As a result of these actions, the Department is planning to publish 
a Department-wide Award Fee Contract Guide to replace various guides 
currently maintained by the military departments and defense agencies.
    Senate Report 109-254 that accompanied the Senate's National 
Defense Authorization Bill for Fiscal Year 2007 made reference to some 
of the Department's actions that I just mentioned, and it opined: ``The 
committee commends Department plans to provide senior-level strategic 
thinking to the manner in which the Department `governs, manages, and 
executes its activities.' The committee believes that establishing some 
guidelines, standards and accountability in the use of award and 
incentive fee contracts, along with an evaluation of their strengths 
and weaknesses when effectively used will improve productive use of 
performance contracts.''
    If confirmed, I intend to ensure that these efforts to improve our 
regulations, policies, procedures, and practices are carried out 
appropriately.

    33. Senator Akaka. Mr. Young, in 2000, the Federal Government 
awarded $67.5 billion in non-competitive contracts. By 2005, that 
figure increased 115 percent to $145 billion. The net result of this 
growth in contracts was that the value of contracts overseen by the 
average government procurement official rose by 83 percent. If 
confirmed, what steps do you intend to take to ensure the acquisition 
workforce is appropriately sized and structured to be able to carry out 
its responsibilities of contract oversight? How do you intend to 
improve contract oversight in the field, particularly in war zones, 
such as Iraq and Afghanistan?
    Mr. Young. As the Acting USD(AT&L), I am taking steps, in 
partnership with the military departments, to ensure we have the right 
workforce capability for all acquisition-related functions, including 
contract oversight. I have established Enterprise Outcome #3: ``Take 
Care of Our People,'' which includes establishing a comprehensive 
workforce analysis and decisionmaking capability to support workforce 
size, and structure decisions. I have taken steps to focus on critical 
skill set gaps, both current and future, in important acquisition 
mission areas. In support of the major people initiatives of the 
Quadrennial Defense Review and DOD human capital strategies, we are 
moving to standard competency models and competency assessments to 
improve workforce career development, training, and management of 
capability. Currently, the update efforts are complete (through Phase 
II) for program management, life-cycle logistics, and contracting. Each 
is going through subsequent validation and refinement. We have deployed 
and accelerated a comprehensive competency assessment initiative for 
the DOD contracting community. The contracting competency assessment 
began in June 2007, and as of October 1, 2007, approximately 2,300 
contracting personnel from the Defense Logistics Agency (DLA) and the 
Air Force have participated in the pilot, and in fact, DLA has 
completed its assessment. A DOD-wide assessment of the contracting 
workforce will begin in January 2008. This competency assessment will 
assist senior contracting leaders in identifying critical skill gaps 
and defining appropriate workforce strategies. Their actions may 
include reallocation of resources, targeted recruitment, better 
retention strategies, and targeted expansion of education and training 
resources. We are strengthening management and support to contracting 
officer representatives (CORs) who provide an important oversight role. 
We are improving COR training by adding additional lessons on 
contingency contracting and the operational environment. We are 
providing in-theater training support to the U.S Army and Joint 
Contracting Command-Iraq/Afghanistan (JCC-I/A), and we have established 
a quarterly training initiative to address training needs that are 
identified by both the Army, through its Contracting Operations 
Reviews, and separately by the Commander, JCC-I/A. Defense Acquisition 
University (DAU) personnel are deploying again on October 30 to provide 
a 4-day training session in-theater. This training will be conducted on 
a quarterly basis.
    To improve contract oversight in the field, particularly in areas 
such as Iraq and Afghanistan, I directed that all DOD contracting 
officers must ensure that, prior to contract award, all statements of 
work and terms and conditions that relate to the delivery of supplies 
or services in or out of Iraq and Afghanistan must be approved by the 
Commander, JCC-I/A. I also directed that JCC-I/A must be assigned 
contract administration responsibility for the portion of the contract 
that relates to performance in Iraq and Afghanistan. The Director of 
Defense Procurement and Acquisition Policy, in coordination with JCC-I/
A and the Joint Staff, is issuing implementing guidance.

                          SECURITY CONTRACTORS

    34. Senator Akaka. Mr. Young, it seems to me that engaging enemy 
combatants in a foreign country on behalf of the United States is an 
``inherently governmental function.'' You seem to agree with this 
statement in your response to advance policy question #101, but you 
make a distinction between defensive and offensive operations in Iraq. 
It is possible that the attempt to draw a distinction between the two 
when battling a counterinsurgency could be a contributing cause of our 
problems today? Trying to decide if an action taken by an Iraqi citizen 
is an offensive action aimed at the asset guarded by the security 
contractors may not always be clear cut.
    For instance, it may not always be possible to determine the 
intentions of an approaching vehicle, and therefore, the contractor may 
choose to react aggressively. Based on media reports of Blackwater's 
actions in Iraq, it seems possible that because the security 
contractors are operating in a war zone, they are quicker to interpret 
non-hostile actions by the local citizens as being hostile actions, 
leading to responses that may have been inappropriate and 
counterproductive to our counterinsurgency efforts.
    We must remember that the local citizenry will perceive any action 
taken by an American contractor on behalf of the U.S. Government, or 
while escorting officials of the U.S. Government, as being an official 
act of the U.S. Government. In addition, since our fight against the 
Iraqi insurgency is one where we are trying to win the hearts and minds 
of the local citizenry, it is imperative that all U.S. personnel 
(military and civilian) respect the local population and provide a 
positive representation of our country.
    The negative perceptions of security contractors is obviously 
compounded by their lack of accountability. It seems intuitive that 
anyone engaging the enemy in Iraq and Afghanistan should be following 
the military rules of engagement and should be subject to the Uniform 
Code of Military Justice (UCMJ). As such, it is questionable whether 
private security firms should have been used in Iraq and Afghanistan to 
begin with, especially without being subject to any criminal penalties.
    Obviously, real world events have showed us the problems of our 
heavy reliance on these firms, as they are continuing to create 
headaches for our counterinsurgency operations in Iraq.
    In your opinion, what is the basis for concluding that the security 
operations for U.S. Government/diplomatic officials in a war zone is 
not inherently governmental, and therefore, can be contracted out to 
contractors, such as Blackwater, Triple Canopy, and DynCorp?
    Mr. Young. Security for U.S. Government/diplomatic officials 
entails a wide range of operations. While some of these operations are 
inherently governmental, others may be appropriate for contract 
services.
    Security provided by private security contractors (PSC) should be 
limited or guided by orders or rules that identify specific ranges of 
acceptable decisions or conduct and subject the discretionary authority 
to final approval or regular oversight by government officials. 
Geographic Combatant Commanders issue ``rules for the use of deadly 
force'' that govern the use of weapons by civilians. These rules are 
different from the ``rules of engagement'' applicable to military 
forces.
    Protection of innocent civilians is at the heart of all security 
operations, whether conducted by the military or PSCs. In response to 
``offensive'' versus ``defensive'' acts, the terms are potentially 
misleading. Private security contractors are authorized to act in self 
defense against legitimate threats against individual(s) they are 
responsible for protecting, such as diplomatic personnel, and for their 
own personal protection. For example, in an ambush, PSCs operate 
differently from military forces. PSCs are trained to drive out of the 
ambush site as quickly as possible, while military forces are trained 
to assault towards the forces ambushing them. The PSC reaction is 
defensive; the military, offensive. Both are acting in self defense.

    35. Senator Akaka. Mr. Young, given current events surrounding 
security contractor operations in Iraq, will you conduct a reevaluation 
of the roles of security contractors in Iraq and Afghanistan?
    Mr. Young. Yes. A few weeks ago Secretary Gates sent a senior-level 
team to Iraq to evaluate DOD's policies and procedures for DOD PSCs. As 
a result of that trip, DOD has initiated several steps to improve 
management and oversight of DOD PSCs. We are also engaging in 
discussions on how we use contractors during contingency operations. 
These discussions will include a reevaluation of the roles and 
responsibilities of security contractors in Iraq and Afghanistan.

    36. Senator Akaka. Mr. Young, given that many of these contractor 
personnel are former military, it can be argued that they do not 
particularly possess any special skills that our military does not 
already have. In addition, they cost two to three times what our troops 
cost, and are not subject to any criminal penalties for their actions. 
This sends the wrong message to our troops. It seems to me that if the 
reason for needing contractors is just to free up troops for military 
missions, then the military should request an increase in end strength 
to compensate for the security contractor work, and replace the 
contractors as soon as troops are ready to handle the mission. Do you 
agree? If not, why not?
    Mr. Young. This is a difficult question to answer as there are a 
number of metrics to consider in arriving at a succinct response. 
Increasing end strengths has long-term consequences relative to 
remuneration over a full career and retirement benefits, whereas the 
contractor augmentation of uniformed personnel has increased short-term 
costs but without long-term impacts. It is important to note that DOD 
contractors accompanying our armed forces are subject to criminal 
penalties for their actions under both the Military Extraterritorial 
Jurisdiction Act (MEJA), and under the UCMJ. Nonetheless, the question 
of security contractor roles deserves further study, review, and 
consideration.

    37. Senator Akaka. Mr. Young, if confirmed, what steps do you 
intend to take to address the DOD's reliance on security contractors in 
war zones?
    Mr. Young. Contractors have, since the beginning of this nation, 
always played a vital role in defending our great country. In Iraq and 
Afghanistan, PSCs are providing a variety of defensive security 
functions, including: static and perimeter security, convoy escort, 
personal security, and consultation services. As a result, more combat 
troops are available to focus on operational objectives. At present, 
private security contractors represent less than 5 percent of the total 
contractor population. I will continue to evaluate the appropriateness 
of this mix based upon a thorough risk analysis.

                       NATIONAL DEFENSE STOCKPILE

    38. Senator Akaka. Mr. Young, thank you for your recent report on 
the July meeting of the Strategic Minerals Protection Board. I have 
reviewed the Board's Terms of Reference and note that there is no 
mention of the National Defense Stockpile (NDS). The NDS, as you may 
know, has been the subject of study over the years and most recently in 
a report released October 5, 2007, by the National Research Council 
(NRC). The Council's report addresses many of the issues raised in the 
Strategic Minerals Protection Board's Terms of Reference concerning the 
supply of critical materials.
    The NRC concludes that the DOD does not appear to have the 
information systems for data collection and analysis necessary to 
understand its actual materials requirements and their availability 
over time. Also, the NRC's review of the history of the NDS clearly 
indicates that the system has not been a priority consideration for the 
DOD in the adjustment of policies and programs to most effectively and 
efficiently manage the system. The NRC report recommends establishing a 
new system within the DOD to collect and analyze data necessary to 
manage and assure the supply of strategic or critical materials to the 
military.
    How would you propose to undertake a comprehensive assessment and 
establishment of an integrated supply chain management approach to 
assuring the supply of critical materials?
    Mr. Young. The Department is currently reviewing the NRC 
recommendations to determine the best course of action to ensure 
availability of material for military Service needs. We will focus on 
how to identify and capture material requirements on a timely basis. 
Once material needs are established, the Department can apply supply 
chain analysis processes to identify global commodity supply sources, 
evaluate the supply chain weaknesses, and make a determination of the 
most appropriate tool to assure continued supply of strategic or 
critical materials.

    39. Senator Akaka. Mr. Young, how would you propose to integrate 
the NDS into the Strategic Materials Protection Board's Terms of 
Reference?
    Mr. Young. The Department's Strategic Materials Protection Board 
met for the first time on July 17, 2007. The Terms of Reference 
approved at that meeting stated that the Board would: examine risks 
associated with materials designated as critical to national security; 
recommend a strategy to the President to ensure the domestic 
availability of materials designated as critical to national security, 
as appropriate; and recommend such other strategies to the President as 
the Board considered appropriate to strengthen the industrial base with 
respect to materials critical to national security. Depending on the 
need, certain materials critical to national security could be added to 
the NDS to mitigate supply disruption risks.

                               CORROSION

    40. Senator Akaka. Mr. Young, are you aware of the corrosion issue? 
If so, do you agree that it is a serious issue that costs DOD an 
enormous amount of taxpayer dollars each year, and that there are large 
potential savings not being realized because program managers fail to 
build corrosion prevention and control into their acquisition programs?
    Mr. Young. Yes, I am very aware of the impact of corrosion on the 
Department's equipment and infrastructure. The ongoing DOD cost of 
corrosion study has identified $10 billion in annual corrosion 
costs.\1\ In addition, I recognize that in the past, large corrosion 
related savings have not been achieved in an environment of competing 
performance requirements and that tradeoffs of corrosion protection 
were likely made in some cases. For instance, corrosion protection was 
traded for more environmentally friendly finish systems, etc. However, 
more recently the DOD corrosion emphasis has resulted in policy and the 
necessary tools, which I believe will result in corrosion being better 
addressed in the hierarchy of those competing demands.
---------------------------------------------------------------------------
    \1\ Note that data from this study does not include Navy, Marine 
Corps, and Air Force aircraft whose studies are still in progress.

    41. Senator Akaka. Mr. Young, what was your experience in the Navy 
with regard to getting program managers to build corrosion prevention 
and control into their systems?
    Mr. Young. Among other initiatives, the Navy uses a combination of 
training and corrosion program reviews to enhance the program manager's 
consideration of corrosion during the acquisition process. For example, 
the Navy worked closely with the DOD Corrosion Office to insert 
corrosion-related content into program management courses at the DAU. 
In addition, a Corrosion Prevention and Control Plan (CPCP) template 
was developed for ships and submarines (to complement a previously-
developed CPCP template for aircraft) and it has been inserted into the 
DOD Corrosion Prevention and Control Planning Guidebook, Spiral #3. 
Finally, to insure consistency throughout the Department, a corrosion 
DOD Instruction (DODI) is being finalized which will mandate this. The 
DODI will require that each Service Secretary establish a process to 
review and evaluate corrosion for all development, acquisition, and 
sustainment contracts requiring an acquisition plan.

    42. Senator Akaka. Mr. Young, were you satisfied with the Navy's 
efforts during your tenure there?
    Mr. Young. While there is always room for improvement, the Navy was 
aggressive in its corrosion prevention and mitigation activities during 
my tenure. In addition to intra-Navy actions, we fully supported the 
DOD Corrosion efforts by: providing over $12 million in matching 
funding to support 30 joint-Service corrosion prevention/mitigation 
projects; staffing key Corrosion Prevention and Control Integrated 
Product Team positions with personnel; taking the lead in developing a 
web-based product introduction process that enables suppliers to meet 
DOD's corrosion prevention/mitigation requirements more quickly; and 
acting aggressively on the results from the Navy ship/submarine cost of 
corrosion study. Also, I am pleased to note, that the April 2007 DOD 
corrosion prevention GAO audit showed that for implementing corrosion 
prevention and control plans and forming corrosion prevention advisory 
teams the Navy was leading the other Services. The new Corrosion 
Prevention DOD Instruction will require that all Acquisition Category 
1s to have both a corrosion prevention and control plan and corrosion 
prevention advisory teams.

    43. Senator Akaka. Mr. Young, do you support giving corrosion 
prevention and control higher priority in future weapons systems and in 
the sustainment of current systems and if confirmed, will you give it 
your personal attention?
    Mr. Young. Yes, if confirmed, I will give corrosion prevention and 
control high priority in future weapons systems and in the sustainment 
of current systems. I will implement the direction in 10 U.S.C. 2228 
and establish specific requirements for the DOD Corrosion Executive as 
well as the Service Secretaries.

    44. Senator Akaka. Mr. Young, if the Air Force did know where they 
were, then why were the missiles sent to Barksdale when the command on 
the receiving end was not expecting them?
    Mr. Young. The transfer of Advanced Cruise Missile bodies from 
Minot Air Force Base (AFB) to Barksdale AFB was part of a scheduled 
logistical relocation of the missile bodies that had been going on for 
months. The team at Barksdale AFB was expecting to receive missile 
bodies with ferry training payloads, as they had five times in the 
past, and as required under the logistical relocation plan. The 
Barksdale Team was not expecting to receive the nuclear warheads. The 
DOD can provide the full details of the series of errors and oversights 
associated with this incident at your convenience.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                        MISSILE DEFENSE PROGRAM

    45. Senator Bill Nelson. Mr. Young, last July the Joint 
Requirements Oversight Council (JROC)--which is headed by the Vice 
Chairman of the Joint Chiefs of Staff and is composed of the Vice 
Chiefs of Staff of the military departments--agreed that the 
requirements process for ballistic missile defense (BMD) should be 
transitioned back into normal DOD processes, and the JROC would 
establish oversight of missile defense requirements. This indicates 
that the current system of missile defense requirements is not 
satisfactory to the main requirements oversight body within the 
Department, and raises a number of questions about the need to improve 
oversight of missile defense acquisition within the Department, as well 
as in Congress. If confirmed, will you pledge to work closely with this 
committee to ensure rigorous oversight of the Department's missile 
defense program and the Missile Defense Agency?
    Mr. Young. If confirmed, I would be committed to rigorous oversight 
of all defense acquisition programs, including the BMD System 
acquisition.

    46. Senator Bill Nelson. Mr. Young, if confirmed, would you 
consider commissioning an independent review and assessment of the BMD 
acquisition program?
    Mr. Young. Yes, if confirmed, I would consider commissioning an 
independent review and assessment of the BMD acquisition program. I 
believe such a review is merited because it would provide a new 
perspective, and perhaps new solutions, to many of the challenges 
facing the BMD program today.
                                 ______
                                 
                Questions Submitted by Senator Evan Bayh

                    PRINTED CIRCUIT BOARD TECHNOLOGY

    47. Senator Bayh. Mr. Young, in a Senate Armed Services Committee 
hearing on February 6, 2007, Secretary Gates was asked about the 
investments the DOD was making to ensure that it has a reliable and 
trusted supply of printed circuit boards for future and legacy systems 
and to ensure necessary innovation in the design and manufacture of 
this critical technology. He answered that one of the Department's 
centerpiece efforts is the DLA sponsorship of logistics research and 
development technology demonstrations under an Emerging Critical 
Interconnection Technology (E/CIT) program. What investments in the E/
CIT program and other programs are you making that continue to address 
the Department's vital printed circuit board requirements?
    Mr. Young. The Department received appropriated funds from Congress 
in fiscal year 2007 for logistics research and development of printed 
circuit board technologies and demonstrations. Included in this 
appropriation was funding for the preservation of access to reliable 
printed circuit board manufacturing in the United States. In fiscal 
years 2009-2010, we will look at the need and feasibility of adding 
support for Printed Wiring Assemblies managed by the DLA in order to 
best serve our military customers.

    48. Senator Bayh. Mr. Young, in the National Defense Authorization 
Act for Fiscal Year 2007, the Department was tasked with creating a 
report regarding the recommendations of the National Research Council 
Committee on Manufacturing Trends in Printed Circuit Board Technology. 
How will it address future actions the Department intends to take?
    Mr. Young. The Department has completed the draft report and is in 
the final stage of coordination, which is expected to be submitted in 
November 2007. The Department concurs with each recommendation and 
identifies the implementation actions planned. Details will be 
forthcoming in the fully coordinated report.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton

                         BASIC RESEARCH FUNDING

    49. Senator Clinton. Mr. Young, since 2002 in real terms the basic 
research budgets proposed by the DOD declined by over 6 percent or 
nearly $100 million. This is during a time period when the overall 
research and technology development budget has grown by 35 percent or 
$19 billion, along with huge increases in the DOD top-line budget. That 
indicates that the Department has shifted emphasis to near-term, lower-
risk research and away from longer-term fundamental research that will 
develop next generation warfighting capabilities and train the next 
generation of scientists and engineers. Do you think that there has 
been underinvestment in basic research by DOD? If so, what will you do 
to address that underinvestment?
    Mr. Young. The basic research budget in constant year dollars is up 
8 percent from the President's Budget Request 2000 through 2008. Since 
2002, the budget has declined 6 percent which illustrates a key fact: 
within some small variation, the basic research budget for DOD has been 
``flat'' for almost 20 years.
    Continued investment in basic research is necessary to confront, 
understand, predict, and counter not only the current threat but also 
those which will evolve later in this century. We cannot predict the 
next adversary, its weapons, its tactics, or its capabilities. If 
confirmed, I will seek to ensure that all the Services and agencies do 
not neglect their perpetual requirement to prepare for the future by 
funding basic research today.

    50. Senator Clinton. Mr. Young, what do you view as the value of 
university research within the overall DOD technology development 
strategy?
    Mr. Young. DOD sponsored research at universities underpins the 
development of future military capabilities in two ways. First, 
universities are world-class research performers in science and 
engineering fields important to national defense. Second, investment in 
university research pays additional dividends through the associated 
training of scientists and engineers, thereby helping to ensure the 
future availability of talent needed for defense research and 
development. For the DOD Basic Research program, universities are 
prolific sources of discovery, new knowledge, and understanding that 
lead to more effective and less expensive weapons systems. With the 
benefit of hindsight, we can see patterns of prior basic research, much 
of it performed at universities, that spawned today's revolutionary 
military capabilities, including the Global Positioning System, 
stealth, night vision, and precision strike. We expect equally 
important new capabilities to emerge over the long-term from today's 
investments in DOD basic research.

                       COMPUTER SCIENCE RESEARCH

    51. Senator Clinton. Mr. Young, at your October 25, 2005, 
confirmation hearing to be the DDR&E, I raised the important role that 
DOD investments in fundamental research in computer science play in the 
development of new warfighting capabilities. I asked you to look into 
the issue of general disinvestment in fundamental computer science, 
particularly by DARPA, due to the potential detrimental long-term 
consequences. Have you reviewed the Department's investment strategy 
for fundamental computer science?
    Mr. Young. I agree that computer science research has an important 
role in the development of new capabilities. The review that you've 
asked for is underway. In advance of a final assessment, I can tell you 
the progress to date. To gain insight from the research community, we 
conducted a workshop with the academic chairs of the Nation's 10 
largest university computer science research departments. After the 
workshop we began reviewing reports and data from government 
institutions that track the Federal investment. Currently, we are 
looking at the DOD investment over the past several years in order to 
complete the review.

    52. Senator Clinton. Mr. Young, do you feel that the investment 
situation has changed for the better since your confirmation as DDR&E?
    Mr. Young. It is premature to answer the question prior to 
completing the requested review of computer science research. I will 
say, however, that several capability areas in which we have increased 
our attention have reinforced the importance of computer science such 
as biometrics, information assurance, large scale data set processing, 
and networking.

    53. Senator Clinton. Mr. Young, what steps will you take in your 
new role to ensure that we have sufficient investment in this critical 
area?
    Mr. Young. As we continually explore opportunities and evaluate our 
investments in S&T, we are watchful for areas where our investment is 
out of balance with overall strategy and objectives. Our Reliance 21 
process facilitates oversight by providing a mechanism to stand up 
Technology Focus Teams (TFTs). TFTs are chartered by senior OSD and 
Component S&T management to assess technologies or investment areas. 
For example, this year we are having teams look at software, networks, 
and large data sets. If the level of computer science research is 
negatively affecting these particular technologies then the teams will 
likely uncover that fact in their reviews. I expect Reliance 21 to be 
an important tool in balancing our investment.
                                 ______
                                 
               Questions Submitted by Senator John Warner

                          AEGIS COMBAT SYSTEMS

    54. Senator Warner. Mr. Young, the contract for Aegis combat 
systems on Navy surface ships has not been competed since 1969. When 
you were the Assistant Secretary of the Navy for Research, Development, 
and Acquisition, you approved two sole-source justifications to spend a 
total of $2.5 billion with the incumbent Aegis combat system contractor 
on a cost-plus basis. You also took some innovative actions to try to 
change the Navy's culture by embracing ``open architectures'' for these 
ships to allow many other companies (particularly small businesses) to 
provide cutting-edge computing systems and software at potentially much 
lower cost. Could you please tell me DOD's current plan to evolve the 
Aegis combat system into a true open architecture, using an open 
business model that fosters competition between many companies?
    Mr. Young. The Department of the Navy is implementing an 
overarching strategy to acquire surface ship combat systems using an 
open architecture model approach which takes into account acquisition 
law, existing program delivery schedules, and supportability from both 
a financial and personnel resources perspective.
    Surface Warfare combat systems will transition from platform-based 
development to capability-based development, realign architectures to 
achieve commonality where appropriate, encourage competition to enhance 
innovation and reduce costs, and decouple combat system development 
from platform development while continuing to recognize the need for 
some platform specific needs
    Instead of a single, large company producing a separate and unique 
combat system for each ship class and continuing to upgrade that system 
over its life cycle, the Surface Navy is moving toward a competitive 
environment where many participants--including small businesses and 
other nontraditional DOD contractors--will contribute capabilities to 
collaboratively deliver the best product for the best value using 
commercial, open standards and open business models. This will allow an 
unlimited number of qualified vendors to compete for and contribute to 
the Surface Navy combat systems product line. The specific number of 
companies that will bid and participate is unknown at this time.
    The open architecture model encompasses both technical and business 
aspects and is enabled by well designed system and component interfaces 
that use open and published commercial standards, encourage 
competition, facilitate software and hardware reuse over multiple ship 
classes, enable incremental improvements, reduce dependency on prime 
item integrators, and foster innovation from non-traditional DOD 
companies.

    55. Senator Warner. Mr. Young, on July 9, 2007, the Navy published 
an announcement in the Federal Register of its intent to again extend 
the Aegis Combat System Baseline Computer Program Development contract 
with the incumbent contractor on a sole-source, cost-plus basis. The 
same announcement says that ``competition is being considered for 
fiscal year 2008 to fiscal year 2013 surface Navy combat systems 
upgrades'' and that the Navy may conduct an ``Industry Day'' in July or 
August to discuss it. This seems backwards--sole-source, non-
competitive contracting for hundreds of millions of dollars should be 
DOD's last resort, not its first choice. If DOD were truly interested 
in open systems with many vendors, why wouldn't you consult with 
industry first to determine what could be competitively performed, and 
then minimize the work that had to be performed sole-source?
    Mr. Young. The July 9, 2007, Federal Register announcement is a 
limited 1-year Navy extension of the Aegis Combat System Baseline 
Computer Program Development contract to the minimum efforts required 
for completion of development tasking in fiscal year 2008 in order to 
prevent disruption to the Guided Missile Destroyer (DDG) New 
Construction ship deliveries and Cruiser Modernization.
    Over the past several years the Navy has been working closely with 
Industry and the other military departments to define an Objective 
Combat Systems Architecture as well as the developmental work and 
systems engineering required to evolve to this Navy-defined, standards-
based architecture. This new architecture will enable enhanced 
innovation and allow qualified vendors to compete for and contribute to 
the overall Surface Navy combat systems product line. The Industry Day 
that was referenced in the July 2007 announcement, but was not 
conducted, will address the developmental work associated with the 
Objective Combat System Architecture. A new date for the Industry Day 
is not set.

    56. Senator Warner. Mr. Young, for the next $2 billion Aegis combat 
system contract, how many new companies do you plan to allow to bid for 
work?
    Mr. Young. Instead of a single, large company producing a separate 
and unique combat system for each ship class and continuing to upgrade 
that system over its life cycle, the Surface Navy is moving toward a 
competitive environment where many participants--including small 
businesses and other non-traditional DOD contractors--will contribute 
capabilities to collaboratively deliver the best product for the best 
value using commercial, open standards and open business models. This 
will allow an unlimited number of qualified vendors to compete for and 
contribute to the Surface Navy combat systems product line. The 
specific number of companies that will bid and participate is unknown 
at this time.

    57. Senator Warner. Mr. Young, how many of these will be at the 
prime level, to foster head-to-head competition with the incumbent 
contractor which has had a 40-year lock on this market?
    Mr. Young. In order to manage the risk at an appropriate level for 
our many programs of record, we will not implement this business model 
in one single step. Rather, taking a measured approach, we will 
capitalize on significant systems engineering and integration 
experience resident with the incumbent prime contractors and move 
toward greater competitive acquisition opportunities in design and 
warfighting capability development over time.

    58. Senator Warner. Mr. Young, please provide any written analysis 
the Department has performed prior to the date of this hearing to 
support the specific tasks that DOD does not currently plan to be 
competed under the July 9 announcement, and the specific rationale for 
not competing them.
    Mr. Young. The July 9, 2007, Federal Register announcement is a 
limited 1-year Navy extension of the Aegis Combat System Baseline 
Computer Program Development contract to the minimum efforts required 
for completion of development tasking in fiscal year 2008 in order to 
prevent disruption to DDG New Construction ship deliveries and Cruiser 
Modernization.
    The Navy is currently defining an Objective Combat Systems 
Architecture as well as the developmental work and systems engineering 
required to evolve to this Navy-defined, standards-based architecture. 
This new architecture will enable enhanced innovation and allow 
qualified vendors to compete for and contribute to the overall Surface 
Navy combat systems product line. The Navy has not completed analysis 
of the specific tasks and definition of the work packages to be 
competed for these efforts.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                     SHIPYARD ACQUISITION STRATEGY

    59. Senator Collins. Mr. Young, in 2005 you served as the Under 
Secretary of the Navy for Research, Development, and Acquisition. In 
this capacity you were the architect of what I felt from the outset was 
a very ill-advised one-shipyard acquisition strategy for what is now 
the DDG-1000 program. As you were well aware, such a strategy would 
likely have resulted in the loss of one of our Nation's two remaining 
surface combatant shipyards. Fortunately, Congress took action to block 
your proposal, and I hope that Hurricane Katrina has illustrated to you 
the risks that a one-shipyard acquisition strategy would have entailed.
    I conveyed to you the potential consequences of a natural disaster 
or terrorist attack on one of our shipyards, and it is unfortunate that 
the former came to pass. Our Gulf Coast shipyards are still recovering 
from Hurricane Katrina after more than 2 years of rebuilding efforts. 
So, I hope you have rethought your initial position on this matter and 
recognize the long-term importance of maintaining competition in the 
industrial base, which serves both to drive down costs over time and to 
provide a surge capability in the event of national security 
emergencies.
    Do you have any thoughts or reflections you would like to share 
with this committee regarding this matter?
    Mr. Young. I would hope the DOD could have robust competition in as 
many areas as possible. I believe industry consolidation through 
mergers or acquisitions can limit the number of competitors and thus 
the opportunity for competition. However, there may be cases where DOD 
plans provide inadequate quantities or budgets to maintain viable 
competitors over the long-term without paying cost premiums with 
taxpayer funds, thus denying our warfighters other quantities or 
capabilities that could be purchased. Unique cases of low quantity, 
high cost items require careful analysis to evaluate all aspects of the 
positive and negative benefits of an acquisition strategy for the 
warfighter, the taxpayer, and the industrial base.

    60. Senator Collins. Mr. Young, in your answers to the advanced 
policy questions, you state that you are ``concerned about 
consolidation trends which have had an adverse impact on competition 
opportunities for the DOD.'' Yet, you previously advocated for a one-
shipyard acquisition strategy for the DDG-1000 program, citing short-
term budget pressures. Such an approach would have effectively 
eliminated competition in the DDG-1000 program. How do you reconcile 
your previous endorsement of a one-shipyard acquisition strategy for 
the DDG-1000 program with this statement advocating competition?
    Mr. Young. I believe there were many lessons as we evolved to the 
current DD(X) strategy. I do believe that the final evolution of the 
DD(X) acquisition strategy, the dual lead ship strategy that we 
developed in the Navy, has created tremendous incentives for program 
execution and cost control which will benefit the Navy and the Nation. 
I look forward to the chance to learn more about the progress of the 
DD(X) program.

                      LITTORAL COMBAT SHIP PROGRAM

    61. Senator Collins. Mr. Young, the Navy's proposed plan for the 
Littoral Combat Ship (LCS) program is to eventually down-select to one 
sea frame design and then have an open competition to award the 
contract for the construction of all future LCSs. It would seem to me 
that all of the pains that you have endured during the design and 
construction of the first two ships would be lost if you subsequently 
awarded a third party, that is neither Lockheed Martin nor the General 
Dynamics-Bath Iron Works-Austal team, the final contract award.
    What incentive is there for industry to become involved in a 
program such as LCS if there is the possibility that after working 
through the lead ship design and construction, there would be a 
competition for the final contract award that would be open to 
competitors that did not contribute or invest in the initial program 
and which would profit from the work done by the original design 
shipyards?
    Mr. Young. I am not familiar with the current plans for the LCS 
acquisition. I assure you that I will review the details of these 
plans, if confirmed. The Department of the Navy is fairly paying the 
industry teams for their work under the initial LCS program. However, I 
think any possibility of awarding an LCS construction contract to a 
third party would have to be considered carefully and in great detail. 
DOD must understand the new risks that the Department might incur under 
such an award.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                             F-22 AIRCRAFT

    62. Senator Chambliss. Mr. Young, if the Air Force comes forward 
with a request for funding for a Lot 10 of F-22 aircraft during the 
fiscal year 2009 or fiscal year 2010 budget process, will you support 
that request?
    Mr. Young. Yes, I would consider it. The Department would weigh 
such a request in light of the other fiscal priorities within the 
Department, during budget deliberations.

                              NUNN-MCCURDY

    63. Senator Chambliss. Mr. Young, I believe the Nunn-McCurdy law is 
a critical tool which provides the Services the ability to assess 
whether a DOD program is experiencing cost overruns, as that program is 
defined by its production profile described in the Services' and 
Department's Program of Record. Will you assure the committee that the 
current fixed firm price (FFP)/not-to-exceed (NTE) proposal that has 
been submitted for the C-5 Reliability Enhancement and Re-Engineering 
Program will receive a complete and independent assessment by DOD, in 
light of your responsibility for programs that are assessed by the 
Services to have a Nunn-McCurdy breach?
    Mr. Young. Yes. I have already initiated the Nunn-McCurdy review 
process, as a result of Secretary Wynne's September 27, 2007, 
notification of the breach to Congress. A review of the current 
proposal will be an important part of that review.

    64. Senator Chambliss. Mr. Young, I understand that Nunn-McCurdy 
does not segregate service-directed profile changes and their resulting 
cost increases from other cost increases, such as those resulting from 
contractor and/or supplier factors. Should the current Nunn-McCurdy law 
be amended in order to more appropriately segregate cost growth and 
account for whom or what drove a program's cost increases?
    Mr. Young. I would not recommend the suggested segregation since 
circumstances differ from program to program, and could add additional 
complexity to the Nunn-McCurdy process. I do believe it is useful to 
understand the nature of cost increases and, if confirmed, would seek 
to account for and explain them to Congress when the Nunn-McCurdy 
statute applies.

    65. Senator Chambliss. Mr. Young, do you believe that a Service 
Secretary should be allowed to assess a Nunn-McCurdy breach without a 
prior review by OSD/ATL or would you like to see the law amended to 
provide this additional ``check and balance?''
    Mr. Young. I intend to work closely with the Service Secretaries on 
issues such as this, and see no reason for amending the Nunn-McCurdy 
statute. Nothing in the statute precludes a Service Secretary from 
reviewing programs and making recommendations at any time. I do believe 
in a transparent process which should ensure that USD(AT&L) understands 
the issue and nature of cost increases in a timely manner.

                FIXED FIRM PRICE/NOT-TO-EXCEED CONTRACTS

    66. Senator Chambliss. Mr. Young, do you feel that a FFP contract 
or a NTE contract is an appropriate contractual vehicle to allow a 
defense contractor to perform a service or modification at a FFP, or 
NTE price limit, where the contractor assumes the risk to produce at or 
below that price?
    Mr. Young. Yes, when the requirements are firm and the contract 
performance risks are well understood and manageable, it is perfectly 
appropriate to use a FFP.
    With regard to NTEs: We use NTE pricing with unpriced contractual 
actions (UCAs). When we complete negotiations of a UCA we convert the 
UCA to a definitized contract. When the requirements are firm and the 
contract performance risks are well understood and manageable, we will 
use a FFP contract as the appropriate contract vehicle.

    67. Senator Chambliss. Mr. Young, do you believe that the use of 
Economic Price Adjustment (EPA) clauses are appropriate in long-term 
FFP and/or NTE contracts?
    Mr. Young. In general, we prefer not to use EPA clauses. However, 
in those instances when we have abnormally long periods of performance 
(as is the case in many of our shipbuilding contracts) and there is a 
great degree of uncertainty in the pricing of labor and materials in 
those out-years, we will utilize EPA contract provisions in order to 
protect the Government and the contractor against major fluctuations in 
material and labor escalation, as the case may be.
                                 ______
                                 
    [The nomination reference of John J. Young, Jr., follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 21, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    John J. Young, Jr., of Virginia, to be Under Secretary of Defense 
for Acquisition, Technology, and Logistics, vice Kenneth J. Krieg.
                                 ______
                                 
    [The biographical sketch of John J. Young, Jr., which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

               Biographical Sketch of John J. Young, Jr.

    On November 2, 2005, John J. Young, Jr. was appointed as the 
Director, Defense Research and Engineering. As the Director, Mr. Young 
is the Principal Advisor to the Secretary of Defense on technical 
matters and acts as the Department's Chief Technology Officer. His 
portfolio includes oversight of a $70 billion research enterprise; 
which includes: Basic and Applied Research, development of certain 
prototypes, oversight of the Service laboratories and federally funded 
research and development centers, the Defense Advanced Research 
Projects Agency, and the Defense Technical Information Center.
    Mr. Young is a graduate of Georgia Institute of Technology, where 
he participated in the cooperative engineering education program at 
Georgia Tech, working with what is now Lockheed Martin Tactical 
Aircraft Systems in Fort Worth, TX. Under this program, he worked in 
eight different engineering groups primarily supporting the F-16 
program and advanced fighter technology efforts. Mr. Young next worked 
at the BDM Corporation in Huntsville, AL, providing engineering support 
of Army missile defense interceptor programs.
    After receiving a Master's degree in Aeronautics and Astronautics 
from Stanford University, Mr. Young joined the technical staff at 
Rockwell Missile Systems Division in Duluth, GA. He became a member of 
the Technical Staff at Sandia National Laboratories in 1988 where he 
worked on hypersonic weapon designs and maneuvering reentry vehicle 
aerodynamics as well as standoff bomb concepts. While at Sandia, he was 
selected as an American Institute of Aeronautics and Astronautics 
(AIAA) congressional fellow. He served his AIAA fellowship with the 
Senate Defense Appropriations Subcommittee and then joined the 
committee's professional staff.
    During his tenure with the committee, he served as the staff 
analyst for Department of Defense (DOD) procurement, research, 
development, test, and evaluation programs. Prior to leaving the 
committee, he was responsible for reviewing all DOD aircraft 
procurement programs as well as the activities of the Ballistic Missile 
Defense Organization and the Defense Advanced Research Projects Agency. 
He also evaluated the science and technology program budgets for the 
Navy, Air Force, and Office of the Secretary of Defense.
    Mr. Young is the former Assistant Secretary of the Navy for 
Research, Development, and Acquisition. As the Navy's Senior 
Acquisition Executive, Mr. Young implemented a wide range of innovative 
organizational and business practices to increase the effectiveness and 
efficiency of Navy and Marine Corps procurement and research programs. 
He stabilized programs and controlled cost through emphasis on 
milestone-based incentive fees, control of change orders and 
requirements, multi-year procurement contracts, and creation of 
competitive and joint programs.
    Under his leadership, the Navy acquisition team successfully 
changed Navy acquisition approaches through programs like Operation 
Respond and the Littoral Combat Ship (LCS). In response to the urgent 
needs of the U.S. Marine Corps, he led the department's urgent 
acquisition efforts under Operation Respond--a team established to 
rapidly meet the technological and material requirements generated from 
deployed warfighters serving in Iraq. Operation Respond efforts ensured 
that the Marine Corps had needed items ranging from vehicle armor to 
helicopter survivability equipment to ballistic goggles. LCS was 
defined through collaborative work with the Chief of Naval Operations 
and naval fleet leadership, leading to a keel laying in roughly 3 years 
after program initiation. Mr. Young has also pursued greater jointness 
on many efforts, including his successful merger of the Air Force and 
Navy Joint Tactical Radio System clusters and the Distributed Common 
Ground Station.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by John J. Young, 
Jr., in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    John Jacob Young, Jr.

    2. Position to which nominated:
    Under Secretary of Defense for Acquisition, Technology, and 
Logistics.

    3. Date of nomination:
    June 21, 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    May 29, 1962; Newnan, Georgia.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Barbara Joan Schleihauf.

    7. Names and ages of children:
    Nathan Jacob Young, 15; William Joseph Young, 13; and Kathryn 
Elizabeth Young, 10.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Stanford University; 10/85-6/87; Master's in Aeronautics and 
Astronautics; Stanford, CA.
    Georgia Institute of Technology; 6/80-6/85; Bachelor's in Aerospace 
Engineering; Atlanta, GA.
    Newnan High School; 9/78-6/80; High School Diploma; Newnan, GA.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Department of Defense; Washington, DC, Director, Defense Research 
and Engineering, Office of the Secretary of Defense, Washington, DC; 
11/05-Present.
    Department of Navy; Washington, DC, Assistant Secretary of the Navy 
(Research, Development, and Acquisition), Department of the Navy, 
Washington, DC; 7/01-11/05.
    United States Senate, Committee on Appropriations; Washington, DC, 
Professional Staff Member, Defense Appropriations Subcommittee, 
Washington, DC; 12/93-7/01.
    Sandia National Laboratory; Albuquerque, NM; Member of the 
Technical Staff serving the U.S. Senate as an American Institute of 
Aeronautics and Astronautics (AIAA) Congressional Fellow on the U.S. 
Senate Defense Appropriations Subcommittee, Washington, DC; 1/91-12/93.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    No additional positions.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member--American Institute of Aeronautics and Astronautics.
    Member--Jamestown Parent Teacher Association.
    Member--The Briarean Society, Phi Kappa Phi, Tau Beta Pi, Sigma 
Gamma Tau, and Phi Eta Sigma college honor societies.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    2007--Selected as American Institute of Aeronautics and 
Astronautics (AIAA) Fellow.
    2006--Awarded the Defense Acquisition University David Acker Award 
for Skill in Communication.
    2005--Awarded Distinguished Public Service Award by the Secretary 
of the Navy for invaluable contributions to the Department of the Navy 
by leading the Operation Respond team and creating innovative 
approaches to multi-year contracts that provided efficient warfare 
systems to the taxpayer.
    2003--Awarded Distinguished Public Service Award by the Secretary 
of the Navy for implementing innovative business practices, stabilizing 
the Navy's most important programs, and encouraging partnership with 
industry.
    Awarded certificate of service from the Secretary of the Navy for 
10 years of service in the United States Government.
    Selected for the 1996 National Security Leadership Course at 
Syracuse University.
    Selected for the 1996 class of Georgia Institute of Technology 
Council of Outstanding Engineering Alumni.
    Please see attachment sheet for additional recognitions and 
achievements.

    [Nominee responded and the information is contained in the 
committee's executive files.]

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``Proper Objectives for the Strategic Defense Initiative''; 
American Institute of Aeronautics and Astronautics Student Journal; 
fall 1985.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have attached for your review two copies of recent speeches that 
I have delivered in the past 5 years.

    [Nominee responded and the information is contained in the 
committee's executive files.]

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date

    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 John J. Young, Jr.
    This 21st day of June, 2007.

    [The nomination of John J. Young, Jr., was reported to the 
Senate by Chairman Levin on November 15, 2007, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on November 16, 2007.]
                              ----------                              

    [Prepared questions submitted to Douglas A. Brook by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses

DUTIES OF THE ASSISTANT SECRETARY OF THE NAVY (FINANCIAL MANAGEMENT AND 
                              COMPTROLLER)

    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Navy (Financial Management and 
Comptroller) (ASN(FM&C))?
    Answer. If confirmed, I would be responsible for advising the 
Secretary of the Navy on financial management matters and for directing 
and managing all financial activities and operations of the Department 
of the Navy (DON).
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I hold degrees in political science, public administration 
and public policy and I have served as a Navy Supply Corps officer. 
From 1990-1992, I served as Assistant Secretary of the Army (Financial 
Management) and in 1992-93 was Acting Director of the Office of 
Personnel Management. I am currently on the faculty at the Naval 
Postgraduate School (NPS) where I teach a required course in Defense 
Budget and Financial Management Policy. I am also director of the 
Center for Defense Management Reform at NPS where I conduct and oversee 
research in various areas of defense management.
    Question. Do you believe that there are any actions that you need 
to take to enhance your ability to perform the duties of the ASN(FM&C)?
    Answer. Yes, although I am generally knowledgeable about Navy 
financial management, I will need to make the transition from a 
relatively abstract academic environment to the specific operational 
environment. This means learning quickly the details of current Navy 
financial management and comptrollership matters.

                          RELATIONSHIPS (OLA)

    Question. What is your understanding of the relationship between 
the ASN(FM&C) and each of the following:
    The Secretary of the Navy.
    Answer. The ASN(FM&C) is the principal assistant and advisor to the 
Secretary of the Navy on fiscal and budgetary matter. The ASN(FM&C) 
also performs other duties as the Secretary may prescribe.
    Question. The Under Secretary of the Navy.
    Answer. Similarly, the ASN(FM&C) is also the principal assistant 
and advisor to the Under Secretary of the Navy on fiscal and budgetary 
matter. The ASN(FM&C) also performs other duties as the Under Secretary 
may prescribe.
    Question. The other Assistant Secretaries of the Navy.
    Answer. The ASN(FM&C) provides advice on financial matters to the 
other Assistant Secretaries, and provides financial management policy 
leadership, guidance, implementation and coordination with the other 
Assistant Secretaries. If confirmed, I would ensure that their 
interests are represented in recommending financial alternatives to the 
Secretary of the Navy. I would work to ensure that financial management 
activities of the Department support their respective portfolios.
    Question. The General Counsel of the Navy.
    Answer. If confirmed, I would expect to have a close working 
relationship with the General Counsel, to understand and address the 
legal implications of DON financial matters and to assure compliance 
with fiscal law.
    Question. The Chief of Naval Operations.
    Answer. If confirmed, I am committed to providing the support that 
the Chief of Naval Operations requires in order to execute his duties 
and responsibilities and achieve the mission of the Navy.
    Question. The Commandant of the Marine Corps.
    Answer. If confirmed, I am committed to providing the support that 
the Commandant of the Marine Corps requires in order to execute his 
duties and responsibilities and achieve the mission of the Marine 
Corps.
    Question. The Under Secretary of Defense (Comptroller).
    Answer. In the role of ASN(FM&C), I would, if confirmed, work with 
the Under Secretary of Defense (Comptroller) in the development and 
execution of the budgetary and fiscal policies and initiatives of the 
President, the Secretary of Defense, and the Secretary of the Navy.
    Question. The Assistant Secretary of Defense for Networks and 
Information Integration/Chief Information Officer.
    Answer. If confirmed, I would work to ensure that DON information 
technology systems that support diverse activities are properly managed 
and resourced to accommodate the full spectrum of financial management 
functions and reporting.
    Question. The Director, Office of Program Analysis and Evaluation.
    Answer. If confirmed, I would work to ensure that the program 
priorities of the DoN are well understood; that thorough DON program 
reviews are conducted within the framework of the Planning, 
Programming, Budgeting, and Execution (PPBE) process; the results are 
communicated to leadership; and are in concert with overall Department 
of Defense (DOD) strategy.
    Question. The Assistant Secretaries for Financial Management of the 
Army and Air Force.
    Answer. If confirmed, I am committed to working closely with the 
Assistant Secretaries of the Army and Air Force in the area of 
financial management to support the efforts of the Secretary of Defense 
and the Under Secretary of Defense (Comptroller) in order to facilitate 
decision making at all levels and achieve the strongest cooperation 
between the Services possible. I am committed to working to foster a 
cordial and productive working relationship with these colleagues.

         CIVILIAN AND MILITARY ROLES IN THE NAVY BUDGET PROCESS

    Question. What is your understanding of the division of 
responsibility between the ASN(FM&C) and the senior military officers 
responsible for budget matters in Office of the Chief of Naval 
Operations and headquarters, Marine Corps, in making program and budget 
decisions, including the preparation of the Navy Program Objective 
Memorandum, the annual budget submission, and the Future Years Defense 
Program?
    Answer. If confirmed, I would have the responsibility and the 
authority for all budget matters within the DON. The Director of the 
Office of Budget would serve under my direct supervision and would be 
responsible to me for the formulation, justification, and execution of 
the Department's budget. The Navy and Marine Corps officers responsible 
for programming would also serve as my principal military advisors in 
my capacity to oversee development of the DON program objectives 
memoranda.

                     BUSINESS TRANSFORMATION AGENCY

    Question. The Department recently established the Business 
Transformation Agency (BTA) to strengthen management of its business 
systems modernization effort.
    What is your understanding of the mission of the BTA and how its 
mission affects the responsibilities of the ASN(FM&C)?
    Answer. The stated mission of the BTA is ``to guide the 
transformation of business operations throughout the DOD and to deliver 
Enterprise-level capabilities that align to warfighter needs.'' It is 
my understanding that the BTA provides the framework for DOD's future 
business environment, using a ``tiered'' approach that allows 
components to execute plans that are within this framework but also 
allowing the flexibility to support unique mission requirements. This 
approach, if executed properly, would support the effort to achieve 
accurate and timely financial decisionmaking in DON.
    Question. What is your understanding of the role of the ASN(FM&C) 
in providing the Navy's views to the BTA, or participating in the 
decisionmaking process of the BTA, on issues of concern to the Navy?
    Answer. BTA states that ``the Department's approach to business 
transformation relies on tiered accountability at the enterprise, 
component, and program levels [. . .]. The components are participants 
in the governance process as well as key implementers.'' Thus, the 
Assistant Secretary should be involved in establishing and implementing 
DOD-wide financial management standards and improvement programs that 
affect DON.

                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges that will 
confront the ASN(FM&C)?
    Answer. The DON, like all of DOD, is challenged by internal and 
external pressures on its budgetary resources. Recognizing these 
pressures and constructing budget proposals that meet the needs of the 
Navy and the Nation will be an ongoing challenge. At the same time, 
good financial management requires the systems, processes, and educated 
and trained personnel to produce timely, accurate, and useful financial 
information to support sound decisionmaking.
    Question. Assuming you are confirmed, what plans do you have to 
address these challenges?
    Answer. Recognizing that, if confirmed, my remaining term of office 
is likely to be relatively short, I see three critical challenges:

        <bullet> First, the development of sound Navy and Marine Corps 
        budget proposals for fiscal year 2009 and fiscal year 2010.
        <bullet> Second, to make discernible progress toward achieving 
        auditability of the Department's financial statements.
        <bullet> Third, to identify needs, plan, and invest in 
        appropriate training, education and career development for the 
        Navy's military and civilian financial management personnel.

    If confirmed, I will work closely with the Navy's military and 
civilian leaders to develop sound budget proposals that recognize the 
needs of the Navy and Marine Corps and the fiscal environment in which 
budgetary decisions will be made. With regard to financial statements, 
I will endeavor to provide the leadership commitment required to make 
progress toward achieving an auditable financial statement. In the 
career development area, I will review and act where necessary to 
develop a sound plan for education, training, career development and 
assignment of financial management personnel.
    In addition, the ASN(FM&C) is in a position to be an agent of 
transformation, with capability to develop the strategies to make 
financial and budgetary business operations more effective and 
efficient. If confirmed, I would support the continued development of 
improved DON business operations.

                               PRIORITIES

    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the ASN(FM&C)?
    Answer. Please refer to the answers to the above questions. If 
confirmed, I will quickly become engaged in the Navy's Planning, 
Programming, Budgeting, and Execution System process to assure that 
every effort is made to produce sound and defensible budget proposals. 
I will provide strong leadership support for making progress on the 
Navy's financial statements under the Financial Improvement and Audit 
Readiness plan. I will immediately begin a review of the education, 
training, career development, and assignment of financial management 
personnel.

                FINANCIAL MANAGEMENT AND ACCOUNTABILITY

    Question. DOD's financial management deficiencies have been the 
subject of many audit reports over the past 10 or more years. Despite 
numerous strategies and initiatives, problems with financial management 
and data continue.
    What do you consider to be the top financial management issues that 
must be addressed by the DON over the next 5 years?
    Answer. I believe the top challenge will be to support an expanded 
wartime mission to combat terrorism, and to execute that urgent mission 
within resources provided by Congress. To be successful, we need to 
fundamentally change the way we do business, documenting, and better 
controlling our business processes, making them less costly and more 
effective. In my experience, the weaknesses that are attributed to 
financial management are symptomatic of weaknesses in our systems and 
processes. There seems to be consensus between the audit community and 
the department that the major challenge is the department's ability to 
generate timely, relevant, and reliable financial information for 
decisionmaking. Resolving that problem requires a combination of new 
information systems, new business processes, training and education, 
and cultural change. Those factors must all be addressed in balance to 
ensure the department becomes more financially proficient and can 
sustain that proficiency.
    Question. If confirmed, how would you plan to ensure that progress 
is made toward improved financial management in the Navy?
    Answer. The Department has a Financial Improvement Program, which 
is aligned with the DOD Financial Improvement and Audit Readiness Plan. 
If confirmed, I will work to ensure progress is made in accordance with 
that plan and will also look at whether adjustments are required to the 
plan.
    Question. If confirmed, what private business practices, if any, 
would you advocate for adoption by the DOD and the Department of the 
Navy?
    Answer. Certainly some governmental activities are business-like 
and some management practices can be incorporated from the private 
sector. With respect to financial management, in those cases where 
there is an appropriate private sector practice the Navy would benefit 
by emulating, if confirmed, I would give them serious consideration. I 
would also look to other well-run Federal or State governmental 
agencies, or the non-profit sector, for management best practices.
    Question. What are the most important performance measurements you 
would use, if confirmed, to evaluate changes in the Navy's financial 
operations to determine if its plans and initiatives are being 
implemented as intended and anticipated results are being achieved?
    Answer. I understand the importance of effective performance 
measurement and support the use of metrics. I understand that both Navy 
and the DOD comptroller are developing measures of progress in 
financial management. If confirmed, I will work to understand and 
employ these and other metrics to measure financial management 
performance.
    Question. Over the last several years, the DOD has taken a number 
of steps to realign its management structure to expedite and enhance 
its business transformation efforts. For example, the Department has 
established a new Defense Business Systems Management Committee, the 
BTA, and the Investment Review Boards. The military departments do not 
appear to have taken similar organizational steps.
    Do you believe that the organizational structure of the Department 
of the Navy is properly aligned to bring about business systems 
modernization and financial management improvements?
    Answer. Over the past several years, the governance and management 
structures for systems modernization and financial management 
improvement have been evolving. To the extent those organizational 
structures and plans are now stable, I believe it would make sense for 
the components to follow suit. However, until such time as I can gain 
greater experience and understanding of how these structures are 
working, I cannot say whether they are currently properly aligned.
    Question. If not, how do you believe the Department should be 
restructured to more effectively address this issue?
    Answer. If confirmed, I would need to look into this matter in 
depth from within before drawing any conclusions.

               BUSINESS MANAGEMENT MODERNIZATION PROGRAM

    Question. For the past several years, the Department has pursued a 
Business Management Modernization Program (BMMP) aimed, in part, at 
correcting deficiencies in DOD's financial management and achieving the 
ability to receive an unqualified ``clean'' audit.
    Do you support continuing the BMMP?
    Answer. In the evolution of the Department's efforts to transform 
its business management practices, it is my understanding that the BTA 
has superseded the BMMP. I support the objectives of business 
management modernization and will work to make progress toward an 
unqualified audit opinion.
    Question. If confirmed, what would your role be in this business 
modernization effort?
    Answer. I would engage in BTA matters involving financial 
capabilities and standards and support the Secretary's role in 
deliberations of the Defense Business Systems Management Committee.
    Question. The BMMP advocates top-down leadership in establishing an 
enterprise architecture for business systems modernization. The 
Services, however, appear to be pursuing independent pilot programs for 
modernizing business systems, despite the risk that a Service-led 
approach could produce numerous incompatible systems.
    Do you support an Office of the Secretary of Defense (OSD)-led 
approach to business modernization?
    Answer. I support the defense business transformation goal of 
tiered accountability where enterprise-wide policy and standards are 
set by OSD and component-specific programs are managed by the 
components in conformance with those standards and policies. I support 
communication and coordination mechanisms to ensure both the 
centralized and decentralized aspects of the work are efficient and 
effective.
    Question. If so, what would you do, if confirmed, to ensure that 
the Navy supports such an approach?
    Answer. If confirmed, I will work to ensure the programs managed by 
the Navy conform to the standards and policies set by OSD and the 
various laws governing system development.
    Question. A critical requirement of the BMMP is an ``enterprise 
architecture'' that would establish standards and requirements for 
modernization or new acquisition of business information technology 
systems.
    Do you agree that an effective enterprise architecture is a 
critical step to ensure that new and modified business information 
technology systems serve their intended purposes?
    Answer. Yes. A common architecture more readily supports the 
aggregation of financial data for reporting or to ensure that business 
performance data is useful for management decisionmaking.
    Question. The Comptroller General has taken the position that the 
enterprise architectures of the military departments are not mature 
enough to responsibly guide and constrain investment in business 
systems. According to Government Accountability Office (GAO), the Navy 
has fully satisfied only 10 of 31 core framework elements of an 
enterprise architecture.
    What is your view of this issue? If confirmed, what steps, if any, 
do you plan to take to address this problem?
    Answer. I will review the Comptroller General's report and take his 
conclusions seriously. If confirmed, I will work closely with the 
Department's Chief Information Officer as I review the financial 
improvement plans for the department to ensure that our investment in 
business systems is aligned to DOD's objectives and guidance.
    Question. Section 2222 of title 10, U.S.C., requires the DOD to 
institute a process to ensure that money is not wasted on new or 
upgraded defense business systems that are not in compliance with the 
required enterprise architecture. The Comptroller General has testified 
that the enterprise architectures of the military departments ``are not 
mature.'' Nonetheless, they continue to invest billions of dollars 
every year in thousands of business system programs.
    What is your view of this issue?
    Answer. I am not sufficiently knowledgeable about the maturity of 
the Navy's enterprise architecture to comment. If confirmed, I will 
review the Comptroller General's report and take his observations 
seriously.
    Question. Do you believe that we need additional controls on the 
expenditure of funds for business systems until such time as the 
required enterprise architecture is complete?
    Answer. That is a specific remedy to an issue I do not yet fully 
understand. If confirmed, I will make it a priority to look into this 
matter, but at this time I am not able to comment.

                     GAO RECOMMENDATIONS FOR REFORM

    Question. In testimony before the Readiness and Management Support 
Subcommittee, the Comptroller General of the United States, David M. 
Walker, suggested that ``to improve the likelihood of meaningful, 
broad-based financial management and related business reform'', DOD 
should give the leaders of its functional areas, or ``domains,'' 
control of systems investments.
    What is your view of this suggestion?
    Answer. Generally, I believe that control of investments should be 
delegated to the lowest level capable of handling that control. At the 
same time, we have an enterprise-wide concern that requires some degree 
of top-down control and oversight. I am not conversant in the specifics 
of the ``domains'' referred to in the question but will look into that 
matter, if confirmed.
    Question. Mr. Walker testified that the DOD should fix its 
financial management systems before it tries to develop auditable 
financial statements. He stated that: ``Given the size, complexity, and 
deeply ingrained nature of the financial management problems facing 
DOD, heroic end-of-the-year efforts relied on by some agencies to 
develop auditable financial statement balances are not feasible at DOD. 
Instead, a sustained focus on the underlying problems impeding the 
development of reliable financial data throughout the Department will 
be necessary and is the best course of action.''
    Do you agree with this statement?
    Answer. My research supports the Comptroller General's view that 
size and complexity are barriers to achieving unqualified audit 
opinions. It has also shown that heroic effort can sometimes result in 
improved audit reports but that such progress is generally 
unsustainable. Instead, well-designed information systems and business 
processes, leadership commitment, positive resource allocation and 
well-trained people are required to go beyond short-term gains in this 
area.
    Question. What steps need to be taken in the Navy and Marine Corps 
to achieve the goal stated by the Comptroller General?
    Answer. I do not possess the level of detailed knowledge to 
adequately answer that question. If confirmed, that question will be a 
priority because, in my opinion, the Department will require leadership 
to continue strengthening, tightening, and improving business 
processes, systems, and the proficiency of its workforce.

                      LEASING MAJOR WEAPON SYSTEMS

    Question. The controversy surrounding the Air Force 767 tanker 
lease proposal raised significant concerns over leasing versus 
purchasing major military equipment. The Navy and Marine Corps have 
also entered several lease agreements in recent years for certain 
logistical support ships.
    What is your opinion of the pros and cons of leasing versus buying 
major capital equipment? Is leasing a viable and cost-effective option 
for procuring DON equipment, and if so, in what situations?
    Answer. This is an area that I would intend to study carefully if 
confirmed. If confirmed, working with the Assistant Secretary for 
Research, Development, and Acquisition, I would support policies 
requiring the completion of a business case analysis prior to a 
determination to buy or lease equipment. Each situation should be 
carefully reviewed and the results of the analysis should guide the 
decision process.

               SUPPLEMENTAL FUNDING AND ANNUAL BUDGETING

    Question. Since September 11, 2001, the DOD has paid for much of 
the cost of ongoing military operations through supplemental 
appropriations.
    What are your views regarding the use of supplemental 
appropriations to fund the cost of ongoing military operations?
    Answer. When funding requirements are dynamic, long-range forecasts 
are less reliable. Dynamic operational demands require a higher degree 
of timeliness and flexibility. Supplemental appropriations have the 
benefit of being more timely than the annual budget process and have 
greater flexibilities to support the changing demands of a wartime 
fiscal environment. Navy's support of Operation Iraqi Freedom (OIF), 
Operation Enduring Freedom (OEF), and the global war on terror 
continues to require a higher tempo of operations than expected for 
peacetime operations. Thus it may not be practical to attempt to 
program and budget for a dynamic war as far in advance as the normal 
budget process requires. Therefore, it has been appropriate to fund the 
global war on terror through the use of supplemental appropriations. I 
also recognize that the Department has identified projected global war 
on terror costs along with the fiscal year 2008 budget, and, if 
confirmed, I would support this practice.

              AUTHORIZATION FOR NATIONAL DEFENSE PROGRAMS

    Question. Do you believe that an authorization pursuant to section 
114 of title 10, U.S.C., is necessary before funds for operations and 
maintenance, procurement, research and development, and military 
construction may be made available for obligation by the DOD?
    Answer. Yes. However I acknowledge that situations can occur where 
funds have been appropriated but not authorized. I understand that it 
has been the Department's practice to work with all the oversight 
committees to resolve these matters. If confirmed, I will respect the 
views and prerogatives of the Department's oversight committees and 
will work closely with the committees to achieve a resolution of the 
issues, as necessary.

                      INCREMENTAL FUNDING OF SHIPS

    Question. Both the executive and legislative branches have 
traditionally followed a policy of full funding for major capital 
purchases such as ships. Recently, the Department of the Navy has begun 
relying on alternative funding methods for the purchase of ships, such 
as incremental funding or the purchase of an initial class of ships 
through RDT&E funds instead of normal procurement accounts.
    What is your opinion of these types of funding strategies and of 
the pros and cons of incrementally funding ship construction?
    Answer. I am aware that alternative funding approaches for ship 
acquisition have been undertaken but I am not sufficiently 
knowledgeable about these funding models to respond. Generally, I 
believe that the present challenges of naval ship construction make it 
imperative that the Navy work with Congress on appropriate financing 
policies.

                   FUNDING FOR HEALTH CARE FACILITIES

    Question. The conditions at Walter Reed Army Medical Center focused 
considerable attention on the care, management, and transition of 
wounded service members, as well as the condition of medical care 
facilities.
    What is your understanding of the Secretary of the Navy's 
responsibility for the construction, maintenance, and modernization of 
Navy medical facilities, including battalion aid stations which support 
the U.S. Marine Corps?
    Answer. This is an area I would have to study in detail, if 
confirmed.
    Question. Do you believe the current system of oversight and 
funding for DOD medical facilities clearly defines responsibility and 
authority between the military departments and the OSD?
    Answer. This is an area I would have to study in detail, if 
confirmed.
    Question. What changes do you believe are necessary, if any, to 
improve quality and accountability for Navy and Marine Corps medical 
facilities?
    Answer. This is an area I would have to study in detail, if 
confirmed.

           DEFENSE INTEGRATED MILITARY HUMAN RESOURCES SYSTEM

    Question. To address pay and personnel record keeping, and other 
personnel management requirements, DOD is developing the Defense 
Integrated Military Human Resources System (DIMHRS), an integrated, 
joint military personnel and pay system envisioned for use by all the 
Services.
    What is your understanding of the status of the development and 
implementation of DIMHRS in the Department?
    Answer. I am aware that the Department is pursuing a DOD-wide 
solution for personnel management and pay through DIMHRS but I am not 
sufficiently knowledgeable on the details of this program to comment. 
If confirmed, I will make a point of understanding the financial 
impacts of this initiative.
    Question. What is your understanding of the Navy and Marine Corps 
views of the pros and cons of implementing DIMHRS?
    Answer. I understand that DON is committed to a transition to 
DIMHRS following the Army and Air Force, but I am not sufficiently 
knowledgeable on the details of this program to comment. If confirmed, 
I will make a point of understanding the financial impacts of this 
initiative.
    Question. Do you support the full implementation of DIMHRS into the 
DON? If not, why not?
    Answer. I am not sufficiently knowledgeable on the details of this 
program to comment. If confirmed, I will make a point of understanding 
the financial impacts of this initiative.

                             FAMILIES FIRST

    Question. For over 10 years, U.S. Transportation Command and its 
subordinate command, Surface Deployment and Distribution Command, have 
worked to improve the process of moving servicemembers' household 
goods. Implementation of the new system--``Families First''--will use a 
``best value'' approach to contracting with movers that will focus on 
quality of performance, web-based scheduling and tracking of shipments, 
encouragement of door-to-door moves, and full replacement value for 
damaged household goods. It has been estimated that implementation of 
Families First would increase the annual costs for permanent change of 
station moves by up to 13 percent.
    What is your understanding of the implementation of Families First 
and a full replacement value for damaged personal property in the Navy 
and Marine Corps?
    Answer. This is an area I would have to study in detail, if 
confirmed. If confirmed, I will make a point of understanding the 
financial impacts of this initiative.
    Question. What is your understanding of the projected costs of 
Families First to the Navy and Marine Corps over the next 5 years?
    Answer. This is an area I would have to study in detail, if 
confirmed. If confirmed, I will make a point of understanding the 
financial impacts of this initiative.
    Question. Do you support full implementation of the Families First 
program, including the development of the Defense Personal Property 
System, in the DON?
    Answer. I strongly believe we should support our sailors and 
marines and their families. Any proposal to make their household goods 
shipments simpler, more timely, with greater assurances and lower 
expense to the service member is worth serious consideration. I am not 
familiar with the details of the Families First program, but, if 
confirmed, I will certainly devote sufficient time to understanding it 
and its impact on the overall DON budget.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the ASN(FM&C)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of Douglas A. Brook follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      June 5, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Douglas A. Brook, of California, to be an Assistant Secretary of 
the Navy, vice Richard Greco, Jr., resigned.
                                 ______
                                 
    [The biographical sketch of Douglas A. Brook, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

             Biographical Sketch of Douglas A. Brook, Ph.D.

    Dr. Douglas A. Brook is Professor of Public Policy and Director of 
the Center for Defense Management Reform at the Naval Postgraduate 
School (NPS) Monterey, CA. From 2002 until 2005, Dr. Brook was Dean of 
the NPS Graduate School of Business and Public Policy. The School 
offers defense-focused MBA program and other graduated education 
programs for U.S. and international military officers.
    Before joining NPS, Dr. Brook was Vice President, Government 
Affairs for the LTV Corporation.
    Prior to joining LTV, Brook served in two presidentially-appointed 
positions. In 1992 he was Acting Director of the U.S. Office of 
Personnel Management, the central personnel management agency of the 
Federal Government. From 1990 to 1992 Brook was Assistant Secretary of 
the Army for Financial Management, the Army's senior financial 
official.
    Dr. Brook began his career as Director of Public Finance of the 
National Association of Manufacturers in New York. Subsequently, he 
joined the Libbey-Owens-Ford Company and served as Vice President and 
head of the company's Washington, DC, office. In 1982 he founded Brook 
Associates, Inc., a public affairs consulting business serving 
corporate and trade association clients, which he managed until 
assuming duties at the Pentagon. He also served two elected terms on 
the Town Council of Vienna, VA.
    Dr. Brook grew up in East Detroit, MI. He attended the University 
of Michigan, graduating with a Bachelor of Arts degree in political 
science in 1965 and a Master of Public Administration degree in 1967. 
In 2001 he earned his Ph.D. in Public Policy at George Mason 
University. He also completed the 1977 Executive Program at the 
University of Virginia's Colgate Darden Graduate School of Business 
Administration.
    Brook served on active duty as a Navy Supply Corps officer and was 
a member of the Naval Reserve for 30 years. He retired with the rank of 
Captain.
    Dr. Brook and his wife, Mariana, reside in Pacific Grove, CA.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Douglas A. 
Brook in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Douglas A. Brook.

    2. Position to which nominated:
    Assistant Secretary of the Navy (Financial Management and 
Comptroller).

    3. Date of nomination:
    June 5, 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 15, 1944; Chicago, IL.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Mariana (Proctor) Brook.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    George Mason University, 1998-2001, Ph.D. May 2001.
    University of Michigan 1966-1967, MPA, April 1967.
    University of Michigan, 1961-1965, BA, December 1965.
    East Detroit High School, 1958-1961, Graduate, June 1961.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    2005-Present--Professor of Public Policy and Director of Center for 
Defense Management Reform, Naval Postgraduate School, Monterey, CA.
    2002-2005--Dean, Graduate School of Business & Public Policy, Naval 
Postgraduate School, Monterey, CA.
    1993-2002--Vice President, Government Affairs, LTV Corporation, 
Washington, DC.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Member and Chair--ISAC-7, 1994-2002.
    Councilman--Town of Vienna, VA, 1979-1983.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Member--Business Advisory Board, Sodexho USA.
    Of Counsel--Valente & Associates.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Memberships (no offices held):

      American Society of Military Comptrollers
      Association for Public Policy and Management
      American Society for Public Administration
      Military Officers Association of America
      Naval Reserve Association
      Saltaire Property Owners Association
      Duck (NC) United Methodist Church
      Church in the Forest (Pebble Beach)
      Congressional Country Club
      Army and Navy Club
      AARP
      Naval Postgraduate School Foundation
      Monterey Museum of Art
      University of Michigan Alumni Association
      Monterey Symphony Chorus

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Candidate for Councilman, Town of Vienna, VA, 1978, 1979, 1981, 
1983 (non-partisan).
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Joseph L. Fisher Doctoral Award, George Mason University School of 
Public Policy, 2001.
    Fellow, National Academy of Public Administration
    Army Distinguished Civilian Service Medal
    National Defense Service Medal
    Armed Forces Reserve Medal
    Meritorious Service Medal

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Douglas A. Brook and Cynthia L. King, ``Legislating Innovation in 
Human Capital Management: Lessons From The Department of Homeland 
Security,'' in Hannah Sistare and Terry Buss, eds., Innovations in 
Human Capital Management (New York: M.E. Sharpa, 2007): forthcoming.
    Douglas A. Brook and Philip J. Candreva, ``Business Management 
Reform in the Department of Defense in Anticipation of Declining 
Budgets,'' Public Budgeting & Finance, vol. 27. no. Fall 2007, 
forthcoming.
    Douglas A. Brook and Cynthia L. King, ``Civil Service Reform as 
National Security,'' Public Administration Review, May-June 2007: 397-
405.
    Douglas A. Brook, ``Dumping and Subsidy Cases at the ITC: Voting 
Discretion and Commissioner Attributes,'' The International Trade 
Journal, vol. XIX, no. 4 (Winter 2005): 309-335.
    Douglas A. Brook, ``Meta-Strategic Lobbying: The 1998 Steel Imports 
Case'' Business and Politics, vol. 7, no. 1 (2005), Article 4: 1-25.
    Douglas A. Brook, ``Trade Policy Strategies and Enforcement 
Choices: An Examination of the 1992 Steel Antidumping Cases,'' The 
International Trade Journal, vol. XVII, no. 1 (Spring, 2003): 81-100.
    Douglas A. Brook, ``Administrative Reform in the Federal 
Government: Understanding the Search for Private Sector Management 
Models--An Annotated Bibliography,'' Public Administration and 
Management: An Interactive Journal, vol. 7, no. 2 (2002); 117-155.
    Douglas A. Brook, Audited Financial Statements: Getting and 
Sustaining ``Clean'' Opinions, monograph, (Washington: The 
Pricewaterhouse Coopers Endowment for the Business of Government, July, 
2001).
    James P. Pfiffner and Douglas A. Brook, eds., The Future of Merit: 
Twenty Years After the Civil Service Reform Act, (Washington: Woodrow 
Wilson Center Press, 2000)
    Douglas A. Brook, ``Merit and The Civil Service Reform Act,'' in 
James P. Pfiffner and Douglas A. Brook, eds., The Future of Merit: 
Twenty Years After the Civil Service Reform Act, (Washington: Woodrow 
Wilson Center Press, 2000), 1-11.
Technical Reports and Working Papers
    Douglas A. Brook and Philip J. Candreva, Business Reform in the 
Department of Defense with a Declining Budget Top Line, Center for 
Defense Management Reform Working Paper Series, NPS-CDMR-GM-06-008, 26 
October 2006.
    Douglas A. Brook, Bryan Hudgens, Benchmarking Best Practices in 
Transformation for Sea Enterprise, Naval Postgraduate School Technical 
Report Series NPS-CDMR-GM-06-006, September 15, 2006.
    Douglas A. Brook, Cynthia L. King, David W. Anderson, and Joshua P. 
Bahr, Legislating Civil Service Reform: The Homeland Security Act of 
2002, Naval Postgraduate School Technical Report Series NPS-CDMR-HR-06-
006, June 2006.
Invited Presentations
    Philip J. Candreva and Douglas A. Brook, ``Budget Uncertainty and 
Business Management Reform in the Department of Defense: Some 
Considerations for Acquisition Management,'' presented at 4th Annual 
Acquisition Research Symposium, Naval Postgraduate School, Monterey, 
CA, May 16-17, 2007.
    Douglas A. Brook and Cynthia L. King ``Legislating Civil Service 
Reform: The Homeland Security Act of 2002.'' Keynote speakers for the 
Standing Panel on Public Service, National Academy of Public 
Administration, Washington DC. 15 November 2006.
    Douglas A. Brook, discussant for paper by John E. Ullman, ``Defense 
Cuts, Base Closings, and Conversion: Slow Reaction and Missed 
Opportunities,'' presented at the conference George Bush: Leading in a 
New World, Hofstra University, Hempsread, NY, April 17-19, 1997. 
Discussant comments published in conference proceedings: From Cold War 
to New World Order: The Foreign Policy of George H.W. Bush (Westport, 
CT: Greenwood Press, 2002), pages 420-422.
    Douglas A. Brook, ``Steel: Trade Policy in a Changed Environment.'' 
Presented at the conference Representation of Constituent Interests in 
the Design and Implementation of U.S. Trade Policies: The Sweetland 
Conference, The University of Michigan, Ann Arbor November 8-9, 1997. 
Paper published in Alan V. Deardorff and Robert M. Stern, eds., 
Constituent Interests and U.S. Trade Policies, (Ann Arbor: The 
University of Michigan Press, 1558), 133-144.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    N/A.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Douglas A. Brook.
    This 22nd day of June, 2007.

    [The nomination of Douglas A. Brook was reported to the 
Senate by Chairman Levin on November 15, 2007, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on November 16, 2007.]
                              ----------                              

    [Prepared questions submitted to Robert L. Smolen by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                       DUTIES AND QUALIFICATIONS

    Question. What is your understanding of the duties and functions of 
the Deputy Administrator for Defense Programs?
    Answer. The Deputy Administrator for Defense Programs is primarily 
responsible for maintaining a safe, secure and reliable nuclear weapons 
stockpile. This is accomplished by ensuring the safe and efficient 
operations of the nuclear weapons complex, and preparing Defense 
Programs for the future, to include both a transformed nuclear weapons 
complex and nuclear weapons stockpile, to better meet the challenges of 
the 21st century.
    Question. Is it your understanding that the duties of the Deputy 
Administrator for Defense Programs will change or remain the same as 
those of your predecessor?
    Answer. If I am confirmed, my duties as Deputy Administrator for 
Defense Programs will remain generally the same as those of my 
predecessor. Relatively recent actions to place the Site Office 
Managers under the Deputy Administrator and to create one organization 
responsible for Readiness in Technical Base and Operations are settled.
    Question. If you are aware of any proposed changes to the duties 
and functions of the Deputy Administrator, what are those changes?
    Answer. I am unaware of any proposed changes to the duties and 
functions of the Deputy Administrator for Defense Programs.
    Question. What background and experience do you possess that you 
believe qualify you to perform these duties?
    Answer. I recently retired from the United States Air Force with 
over 33 years of service and in 7 of the 10 years I was directly 
involved in operational and policy issues relating directly to the 
duties of the Deputy Administrator for Defense Programs. I began my 
military career with operational experience in ground and airborne 
nuclear missile command and control. I have served on the staff of the 
Secretary of Defense and the Joint Chiefs of Staff. I have also worked 
in the Office of the Secretary of the Air Force in Legislative Liaison; 
first in the House of Representatives and later as the Chief of the 
Senate office on Capitol Hill. Most recently, I served as Deputy 
Director and then Director of the Air Force Office of Nuclear and 
Counterproliferation in the Pentagon. At the conclusion of those 
assignments, I served as the Director of the Strategic Capabilities 
Policy in the Executive Office of the President, and was responsible 
for the development, coordination, and implementation of national 
security policies to support the President and the National Security 
Council. In that capacity, I was the senior ranking military officer in 
the White House complex. During the course of my career, I have 
commanded units at the squadron, group, wing, and major command levels 
while on assignment at Air Force Space Command, Pacific Air Forces 
Command, Air Force Materiel Command, and Headquarters in the Air Force 
District of Washington.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Deputy 
Administrator for Defense Programs?
    Answer. I trust that my background and experience show me to be 
appropriately qualified to be the Deputy Administrator for Defense 
Programs, and I hope the Senate will agree. To enhance my expertise and 
knowledge, if confirmed, I plan to immediately engage with those people 
who can help me better understand the complexities of the issues and 
prioritize the challenges before Defense Programs. This will include 
meeting with staff and managers in key parts of the program, both at 
Headquarters and in the field, along with National Nuclear Security 
Administration (NNSA) and Department of Energy (DOE) management, key 
partners such as the Department of Defense (DOD), Defense Nuclear 
Facilities Safety Board, and Congress. I realize that if I am 
confirmed, I will be leading an organization with a proven track record 
of success--my immediate challenge will be to learn how I can continue 
to lead this exceptional group and to help build upon processes that 
can make the organization even more productive.
    Question. Assuming you are confirmed, what additional or new duties 
and functions, if any, do you expect that the Administrator of the NNSA 
would prescribe for you other than those described above?
    Answer. I am unaware of any additional duties and functions that 
the NNSA Administrator would prescribe for me, other than to continue 
his efficient and effective management of defense programs operations. 
If confirmed, I will work with the Administrator to clarify his 
expectations and strive to be a valued part of the team.

                             RELATIONSHIPS

    Question. If confirmed, how will you work with the following 
officials in carrying out your duties:
    The Secretary of Energy.
    Answer. I have great respect for the Secretary and look forward to 
working with him through the NNSA Administrator on Defense Programs 
issues. The NNSA is very fortunate to have a Cabinet Secretary 
representing us in the administration who can work with the Secretaries 
of Defense, State, and Homeland Security on cross-cutting interagency 
issues and policies concerning the Nation's security.
    Question. The Deputy Secretary of Energy.
    Answer. The Deputy Secretary serves as the Department's Chief 
Operating Officer and I expect to have regular interaction on issues 
that affect both NNSA and other organizations within the Department. 
From major construction projects to cyber security to pension policies, 
there are many issues in which the Deputy Secretary plays a key role.
    Question. The Other Deputy Administrators of the NNSA.
    Answer. The Deputy Administrators for Defense Nuclear 
Nonproliferation and Naval Reactors would be my peers if confirmed. I 
have known both of these individuals for several years during my 
military career. In fact, I regularly worked with the Deputy 
Administrator for Defense Nuclear Nonproliferation while we were at the 
National Security Council. Both of these individuals bring a great 
wealth of knowledge and policy expertise in their assigned areas. I 
have been meeting with the Deputies and Associate Administrators to 
better familiarize myself with the individuals and their specific 
program responsibilities. I look forward to leading those in Defense 
Programs if confirmed.
    Question. The Assistant Secretary of Energy for Environmental 
Management (EM).
    Answer. The Deputy Administrator for Defense Programs needs to have 
a special working relationship with the Assistant Secretary for EM in 
ensuring that NNSA supports and facilitates the cleanup of legacy waste 
and contamination at NNSA sites. As we move towards a smaller 
stockpile, decrease the number of sites with special nuclear materials, 
and consolidate these materials across the complex we will need to work 
hand-in-hand as one Department to meet our goals.
    Question. The other relevant Assistant Secretaries of DOE.
    Answer. I look forward to working with the other Assistant 
Secretaries within the DOE, if confirmed. The DOE is a unique place 
with many talented leaders in both NNSA and other DOE organizations. 
Thus, in order to be most effective, there will need to be close 
collaboration. As we move towards further diversification at our 
national laboratories, I see myself working with the Office of Science 
in particular for the greater good of NNSA, the Office of Science, and 
the Nation.
    Question. The Under Secretary of Defense for Acquisition, 
Technology and Logistics (USD(AT&L)).
    Answer. I have personally known the prior two individuals confirmed 
to this position and worked closely with them. As Acting USD(AT&L), Dr. 
John Young, is the Chairman of the Nuclear Weapons Council (NWC)--focal 
point for the relationship between the DOE and the DOD. My role would 
be to support the NWC collectively by dealing directly with the 
USD(AT&L), the NNSA Administrator (as DOE's voting member to the NWC), 
and the distinguished members from U.S. Strategic Command (STRATCOM), 
the Office of the Under Secretary of Defense (Policy), and the Vice 
Chairman of the Joint Chiefs of Staff on all NNSA-specific matters 
relevant to the NWC. Specifically, I would work with the USD(AT&L) by 
attending NWC meetings and being heavily involved in all NWC matters. 
As a former Director for Air Force nuclear programs, I am quite 
familiar with this process.
    Question. The Under Secretary of Defense for Policy.
    Answer. The Under Secretary of Defense for Policy, Ambassador Eric 
S. Edelman, is a member of the NWC--focal point for the relationship 
between the DOE and DOD. While the NNSA Administrator serves as the NWC 
voting member for DOE and would most likely deal directly with the 
Under Secretary of Defense, the Deputy Administrator manages all NNSA 
issues relating to Defense Programs. Specifically, I would deal 
directly with the Under Secretary of Defense for Policy on nuclear 
weapons policy matters, in coordination with the NNSA Administrator.
    Question. The Secretaries of the Navy and the Air Force.
    Answer. Relationships with the Secretaries of the Navy and the Air 
Force are important when dealing with issues related to nuclear 
security and Defense Programs. Defense Programs generally deals with 
the uniformed Services more than the Service Secretaries through the 
NWC system. As a retired Air Force senior officer, I am well aware of 
the importance of civilian control of the military and can use my 
experience to help NNSA better understand relationships between the 
Services and their respective Departments. I have had regular personal 
contact with the Secretary of the Air Force who I have known for 
several years. If confirmed as the Deputy Administrator, I would seek 
to further cooperative relations with the Secretaries of the Navy and 
the Air Force.
    Question. The Commanders of STRATCOM and U.S. Northern Command 
(NORTHCOM).
    Answer. The Commander of STRATCOM is a member of the NWC. The 
current nominee, General Chilton, is a personal friend. The NNSA 
Administrator and I would deal directly with the Commander of STRATCOM. 
The Deputy Administrator is fundamentally important to the STRATCOM 
relationship for all nuclear weapon program activities. One of the 
Commander's most important duties related to NNSA is providing the 
Annual Assessment Report to the President--a candid report on the 
safety, reliability and expected performance of the nuclear weapons 
stockpile, based on information from Defense Program advisors and the 
national laboratories. As the Commander is responsible for deploying 
the nuclear weapons stockpile, Defense Programs and STRATCOM must have 
a close relationship at many levels. I expect that, if confirmed as the 
Deputy Administrator for Defense Programs, I would spend a significant 
amount of time working with the Commander and his staff, particularly 
during this period of stockpile transformation. The Commander of 
NORTHCOM is also a personal friend and colleague. All issues related to 
carrying out his responsibilities with regard to homeland defense would 
receive my focused and complete attention.
    Question. The Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict and Interdependent Capabilities.
    Answer. Special Operations and Low Intensity Conflict are included 
in NNSA's overall support to and coordination with the DOD in a number 
of areas. As part of our support, we have provided a full-time resident 
liaison to Special Operations Command to facilitate its access to the 
unique capabilities of DOE's national laboratories and to enhance the 
already close working relationship with DOE and NNSA. If confirmed by 
the Senate, I will ensure DOE's unique nuclear capabilities; skills and 
assets are properly available to the DOD and other Federal entities.
    Question. The Assistant to the Secretary of Defense for Nuclear and 
Chemical and Biological Defense Programs.
    Answer. The Deputy Administrator for Defense Programs deals with 
the Assistant to the Secretary of Defense for Nuclear, Chemical and 
Biological Defense Programs on a regular basis. The Assistant to the 
Secretary is the Chairman of the NWC Standing and Safety Committee, the 
flag officer or Senior Executive Service ``working level'' group in the 
NWC system. In this capacity, even though the formal communications 
path to the Assistant to the Secretary position is through the 
Principal Deputy Administrator for Operations in Defense Programs, I 
would expect to spend a significant amount of time working with the 
Assistant to the Secretary, particularly during this period of 
stockpile transformation.
    Question. The Director of the Defense Threat Reduction Agency 
(DTRA).
    Answer. The DTRA works with the NNSA's Offices of Defense Programs, 
Defense Nuclear Nonproliferation, and Emergency Operations on a number 
of issues, ranging from individual weapon system Project Officer Groups 
to hosting DTRA-sponsored work at NNSA sites and collaborating on 
nonproliferation issues. If confirmed, I would work directly with the 
Director of DTRA to further our common goals.
    Question. Officials in the Intelligence Community.
    Answer. The DOE is a member of the Intelligence Community. Within 
DOE, the Director of the Office of Intelligence and Counterintelligence 
has primary responsibility for Departmental interactions with the 
Director of National Intelligence and other Intelligence Community 
components. Each of the NNSA national laboratories maintains a Field 
Intelligence Element, responsible for conducting analysis and technical 
work to fulfill DOE's intelligence responsibilities. If confirmed, I 
will give my strong support to this cooperation and ensure that the 
Intelligence Community continues to have excellent access to the 
national security laboratories and other assets of the Office of 
Defense Programs.
    Question. Officials in the Department of Homeland Security (DHS) 
with responsibilities for nuclear related homeland security matters.
    Answer. NNSA has a close working relationship with the DHS at many 
levels, most notably led by NNSA's Deputy Under Secretary for 
Counterterrorism. If confirmed, I will draw upon these working 
relationships, continue them, and try to improve upon them through 
closer coordination on matters affecting national security. If I am 
confirmed, Defense Programs will continue the cooperative relationships 
prevalent since the creation of DHS. We will continue to work closely 
in updating the National Response Plan (NRP) to define and refine the 
Federal Government's responsibilities in the event of radiological or 
nuclear emergencies and incidents. We will continue cooperative efforts 
on the Homeland Security Exercise Program, where we test our abilities 
to respond to many types of incidents in addition to radiological and 
nuclear emergencies. We will continue to work closely with DHS's 
Domestic Nuclear Detection Office (DNDO) as partners to assess the 
Nation's radiological or nuclear vulnerabilities and risks, to mitigate 
radiological or nuclear threats, and to develop a robust technical 
nuclear forensics capability in cooperation with DNDO's National 
Technical Nuclear Forensics Center. Finally, NNSA stands ready to 
execute our responsibilities under the NRP to deploy our Nuclear 
Incident Response Team and fulfill our responsibilities under the 
Homeland Security Act for domestic radiological or nuclear events. For 
example, should an improvised nuclear device be discovered in the 
United States, Defense Programs is the lead technical office that would 
support the overall Federal incident manager and the Federal Bureau of 
Investigation in its role as lead law enforcement agency. Defense 
Programs has worked hard to forge these cooperative relationships and I 
can assure you that I would continue this collaborative approach.
    Question. Officials in the Department of State with responsibility 
for nuclear nonproliferation matters.
    Answer. NNSA works closely with the Department of State in the area 
of nuclear nonproliferation. If confirmed as Deputy Administrator for 
Defense Programs I would continue to do so, most notably through 
Defense Programs' Nuclear Counterterrorism Design Support Program and 
NNSA's Office of Defense Nuclear Nonproliferation. We will always be 
mindful of the potential or perceived impacts to arms control and 
nonproliferation of initiatives such as the Reliable Replacement 
Warhead (RRW) and Complex Transformation. The Department of State can 
be a valuable resource to assist with other countries' concerns.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges confronting 
the Deputy Administrator for Defense Programs?
    Answer. In my view, the major challenges confronting the Deputy 
Administrator for Defense Programs are complex and stockpile 
transformation. NNSA needs to continually articulate and refine its 
plans to transform the stockpile and complex through the RRW Program 
and Complex Transformation. Defense Programs, unlike many Federal 
organizations, is requirements driven. While Defense Programs has made 
significant improvements in meeting near-term commitments, relief on 
legacy stockpile requirements has not been provided. At the same time, 
modernization of many nuclear facilities is necessary due to aging and 
growing safety and security concerns.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I plan to meet the challenges of combining 
near-term success with long-term transformation by setting clear 
expectations and constant, clear communications. I was a tough 
``customer'' while serving as the Air Force Director of Nuclear and 
Counterproliferation, but NNSA consistently met my expectations. I 
attribute that mostly to the good lines of communication established 
between the Air Force and NNSA, from the depot level, through the 
Project Officers Groups to the Commanders. I believe my Air Force 
experience can help greatly in keeping those lines of communication 
open. If confirmed, I would also continue to strengthen the notion of 
an integrated nuclear weapons complex where everyone has measurable 
metrics, is rewarded for success, and accountability is clear.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I would immediately work to identify and 
knock down barriers to success in the program. I do not yet have a 
specific timeline in mind with regard to management actions. I will 
develop one as soon as I am confident I understand the specific 
challenges we face collectively and in the individual programs. If 
desired, I believe that approximately 90 days after confirmation, I 
could be prepared to share with Congress any specific management 
actions anticipated for the near-term.
    Question. If confirmed, what broad priorities would you establish 
to address the issues that would confront the Deputy Administrator for 
Defense Programs?
    Answer. My highest priorities would be the same as my predecessors 
have had--to maintain the safety, security and reliability of the 
nuclear weapons stockpile while positioning the complex for future 
transformation. NNSA must continue to meet its near-term deliverables 
to the DOD while looking to the future. I believe NNSA can adequately 
do both--and must in order to fulfill its responsibilities to the 
Nation.

                           OVERALL MANAGEMENT

    Question. Do you believe that there are any organizational 
structure issues in the NNSA that should be addressed to improve 
management and operations of the Office of the Deputy Administrator for 
Defense Programs, or that you would address if confirmed? If so, how 
would you address these issues, if confirmed?
    Answer. Constant improvement requires innovative thinking and fresh 
ideas. I do not believe in changing just for the sake of change, but if 
confirmed, I will assess the organizational structure and make 
recommendations to the Administrator and Principal Deputy 
Administrator. I will seek their thoughts on potentially improved ways 
of doing business--if changes will be beneficial, cost effective, and 
streamline the management.
    Question. Do you believe that the expertise of DOE personnel 
serving outside the NNSA can be helpful to you if confirmed?
    Answer. I strongly believe this to be true and very beneficial. If 
confirmed, I will work with the entire DOE and make full use of the 
resources available within and outside of NNSA. Not only is it required 
that we cooperate in many areas with other parts of the Department, but 
I know there are many personnel that can provide assistance and advise 
helpful to Defense Programs.
    Question. If so, what expertise do you believe would be helpful and 
how would you utilize this expertise if you are confirmed?
    Answer. If confirmed, I will make it a high priority to understand 
the full scope of the DOE's available resources. I understand that 
Defense Programs works closely with many offices, such as the Office of 
Engineering and Construction Management; the Office of Health, Safety 
and Security; the Chief Financial Officer; the Office of Environmental 
Management; and DOE's Chief Information Officer. These offices, and 
others within the Department, have expertise that can contribute to the 
success of the missions of the Office of Defense Programs and NNSA.
    Question. Are you aware of any limitations on the authority of the 
Deputy Administrator for Defense Programs to draw on that expertise?
    Answer. There are no limits that I am aware of to drawing on the 
expertise of other offices in the DOE. I view these other offices, such 
as the Office of Engineering and Construction Management and the Office 
of Health, Safety and Security, as invaluable assets to the NNSA and 
Defense Programs. For example, both of these Offices provide valuable 
external reviews and recommendations regarding our activities and 
facilities.
    Question. What is your view of the extent to which the NNSA is 
bound by the existing rules, regulations, and directives of the DOE and 
what flexibility, if any, do you believe you would have in implementing 
such rules, regulations, and directives that would pertain to the 
Office of the Deputy Administrator for Defense Programs?
    Answer. My understanding is that NNSA must comply with rules, 
regulations, and directives issued by the Secretary of Energy and the 
Deputy Secretary. The NNSA Administrator is responsible for ensuring 
that NNSA and its contractors comply with these requirements, and that 
responsibility flows down to the Deputy Administrator for Defense 
Programs. Some rules and regulations provide specific exemption 
procedures that NNSA can invoke if the NNSA Administrator concludes an 
exemption is warranted. In addition, the DOE Departmental Directives 
Program Manual provides a general exemption procedure that allows NNSA 
to deviate from DOE directives. This manual also permits Departmental 
elements, including NNSA, to issue ``supplemental directives'' that may 
be used to implement requirements in directives, assign 
responsibilities and establish procedures within a particular 
Departmental element. Finally, under the NNSA Act, the NNSA 
Administrator has authority to issue NNSA-specific policies, ``unless 
disapproved by the Secretary.''
    Question. NNSA, in large measure, was created in response to 
security lapses at the Los Alamos National Laboratory (LANL). However, 
security lapses, particularly at Los Alamos, have continued to occur. 
Section 3212(b)(10) of the National Defense Authorization Act for 
Fiscal Year 2000 provides that ``the Administrator has authority over, 
and is responsible for all programs and activities of the 
Administration, including administration of contracts, including the 
management and operations of the nuclear weapons production facilities 
and the national security laboratories.''
    If confirmed, how would you plan to assist the Administrator of the 
NNSA to make sure that security lapses do not occur at the NNSA 
facilities?
    Answer. Security of nuclear weapons, nuclear material and design 
information is an extremely important challenge of paramount importance 
to national security. I have extensive experience in this area, from 
the early days of my career as a Minuteman missile system crew member, 
instructor and evaluator, to my command assignments, and most recently 
as the Commander of the Air Force District of Washington. My knowledge 
and emphasis on nuclear security will help the Administrator, the Chief 
of Defense Nuclear Security, the Associate Administrator for Defense 
Nuclear Security, and the Site Office Managers focus appropriately on 
the importance of security at our sites and while nuclear material is 
on the road in the control of the Office of Secure Transportation. Any 
breech in security could bring grave consequences to our Nation, and if 
confirmed, I will do everything in my power to ensure that the complex 
remains safe and secure, and we will take immediate actions to remedy 
any marginal system. Practically speaking, some initiatives such as 
leveraging technology to the fullest extent possible and consolidating 
nuclear materials to fewer locations will take time and funding. I will 
be a strong advocate for creating the most secure nuclear weapons 
complex possible. We need to change the culture at our national 
laboratories, and I understand that NNSA and the Secretary have made 
great progress in this by holding the current and former contractors at 
LANL accountable for this lapse and by improving Federal oversight of 
cyber security and the protection of classified information, integrity, 
responsibility, and accountability are key aspects of a successful 
security program and I will do everything possible to continue the 
efforts currently underway.
    Question. The Deputy Administrator for Defense Programs is 
responsible for activities occurring at NNSA laboratories and 
production sites across the country.
    What are your views on the appropriate roles and responsibilities 
of field managers relative to those of Defense Programs Headquarters 
managers?
    Answer. If confirmed, I look forward to gaining a thorough 
understanding about the perspectives of both field and Headquarters 
managers. There is a close cooperation between field and headquarters 
managers in defense programs, but generally headquarters sets 
expectations through a number of program and contract mechanisms. Field 
managers provide daily oversight of the contractors, since they are 
closest to the work being performed. I realize there are formal 
delegations of responsibilities between the field and Headquarters, 
especially since the Assistant Deputy Administrators and Site Office 
Managers all report to the Deputy Administrator for Defense Programs. 
There needs to be a high degree of integration of efforts and constant 
communication. As a senior military commander, I am familiar with the 
normal friction that often exists between field and headquarters. Trust 
and communications are vital to success and essential to productivity 
and smooth operations.
    Question. What is your view of Defense Programs' organizational 
structure?
    Answer. My understanding of the Defense Programs organizational 
structure is that it works reasonably well, especially considering the 
scope of the mission. I do not see any major disconnects, duplication 
of effort or insurmountable barriers to communication. If confirmed, I 
would soon take a hard look at the structure and look for potential 
improvements. I think it very important that I understand why and how 
the current structure operates and what potential improvements might be 
cost effective before recommending any change.
    Question. In your view, is there a well-delineated and consistent 
chain of command and reporting structure from the field staff to 
headquarters staff and from the contractors to Federal officials?
    Answer. From what I have learned to date, I believe there is an 
established chain of command and reporting structure in place at NNSA, 
but to remain strong and effective with new personnel, it needs to be 
constantly utilized and reinforced. Based on my Air Force experience, I 
am comfortable with the chain of command and I know the consequences of 
deviating from the prescribed path. Everyone must know and learn their 
roles. If confirmed, I will emphasize the necessity of using the chain 
of command for passing information and formal guidance in both 
directions.

                       WEAPONS PROGRAMS PERSONNEL

    Question. If confirmed, what specific steps would you take to 
retain critical nuclear weapons expertise in both the NNSA and the 
contractor workforce?
    Answer. If confirmed, working to retain and develop critical 
nuclear weapons expertise in both the NNSA and the contractor workforce 
will be a high priority of mine. When I was in charge of the Air Force 
nuclear program I had very similar concerns and our office reinstituted 
a fellowship program with five DOE laboratories to provide 10 young 
officers each year with specialized nuclear experience while working at 
the labs. Simply put, the most advanced experimental and computational 
facilities are not worth much without the right people to use them. As 
the Nation's ``brain trust,'' NNSA must continue to strive to make 
itself and its contractors ``Employers of Choice.'' I am impressed with 
NNSA's Future Leaders Program, and want to do everything in my power to 
support it. My personal experience in identifying development 
opportunities for officers within the Air Force nuclear program showed 
me the value in identifying critical personnel and taking positive 
steps to retain them. I also like efforts such as mentoring young 
weapon designers, many of whom have never participated in a nuclear 
test, with real work such as the RRW program. I also appreciate the 
fact that NNSA realizes it faces a real challenge with a large 
retirement-eligible portion of the Federal and contractor workforce and 
is taking steps to address it.
    Question. Do you support retaining the capability to re-manufacture 
every component expected to be found in the stockpile in the near-term?
    Answer. First and foremost, I support maintaining the safety, 
security, and reliability of the nuclear weapons stockpile. This often 
requires the remanufacture of components, but sometimes that is not the 
most prudent approach. Stockpile and Complex Transformation are trying 
to eliminate the need to retain the capability to remanufacture every 
component expected to be found in the present stockpile. In fact, many 
components cannot be reproduced because the materials are no longer 
available due to prohibitions on their use by regulation or to loss of 
the technologies that precede them. Several existing components are 
problematic to make or involve hazardous materials that NNSA wants to 
eliminate. If RRW proves to be a viable alternative, this would also 
help in eliminating the need to remanufacture each and every component.
    Question. What do you see as the most pressing remanufacturing 
needs?
    Answer. In discussions with Defense Programs staff, the most 
pressing remanufacturing needs appear to involve secondaries made at 
the Y-12 National Security Complex and plutonium pits. These are 
extremely intricate nuclear components that cannot be made today in 
quantities high enough to satisfy the projected need, especially if a 
problem develops in the stockpile. If confirmed, I look forward to 
learning more about these and related issues and contributing to a 
solution.

                     STOCKPILE STEWARDSHIP PROGRAM

    Question. The Stockpile Stewardship Program (SSP) has successfully 
supported the annual nuclear weapons certification effort for the last 
15 years.
    Other than the National Ignition Facility, in your view, what other 
capabilities, if any, would be needed to ensure that the stockpile is 
safe, secure, and reliable without nuclear weapons testing?
    Answer. In my view, the SSP has been successful and is on an 
appropriate path for continued success. Due to the highly integrated 
nature of the SSP and constrained budgets, Defense Programs has not 
planned for much redundancy in capabilities in the future. The National 
Ignition Facility and other high profile facilities and capabilities 
each play a complementary role in the SSP and the transformed nuclear 
weapons complex; confidence in the safety, security and reliability of 
the stockpile could be adversely affected if parts of the program are 
not seen to completion. This confidence is subjective and not ``pass/
fail.'' I trust the ingenuity and resourcefulness of the people who 
make up the SSP will meet the challenge to continue to support the 
stockpile, and if confirmed, I will work to provide the most 
appropriate tools for them to do so.
    Question. In your view is the SSP fully coordinated with the DOD, 
and if not what would you plan to do if confirmed to improve the 
coordination?
    Answer. In my view, the SSP appears to be well coordinated with the 
DOD. There is constant communication between the DOE and DOD at many 
levels, ranging from routine tasks such as warhead maintenance and 
surveillance to more policy-oriented issues such as stockpile and 
complex transformation. I know, from my experience as the Air Force 
Director of Nuclear and Counterproliferation, that open communication 
is key to mutual DOE/DOD success, and if confirmed, I will make every 
effort to foster good communications between the Departments.
    Question. The NNSA is in the early stages of an effort to develop a 
new nuclear warhead to be a replacement for an existing warhead, 
without nuclear weapons testing. This effort is the RRW program.
    Do you believe that the SSP is capable of meeting this new 
challenge in the coming years?
    Answer. I believe that the SSP is capable of meeting the challenge 
of transforming the nuclear weapons stockpile through a RRW strategy in 
the coming years. The RRW strategy appears to hold great promise for 
many reasons. The top three in my view are: (1) an opportunity to 
reduce the numbers of currently stockpiled weapons with RRWs that are 
less sensitive to aging effects or manufacturing variability; (2) 
incorporating advanced safety and security features to maintain 
positive assurances against theft, loss, and/or misuse of these 
replacement warheads; and (3) improved confidence in the reliability of 
the nuclear weapons stockpile, through increased performance margins 
and reduced uncertainties, allowing these weapons to be certified 
without conducting an underground test, through the use of the advanced 
Stockpile Stewardship tools. There are a multitude of other good 
aspects to RRW that show it to be an idea with great merit.
    Question. If you are confirmed, and if during your tenure NNSA 
concludes it is not possible to develop or deploy an RRW without full 
scale nuclear weapons testing, would you recommend cancellation of the 
RRW program?
    Answer. I understand that a fundamental tenant of the RRW strategy 
is to certify and field the warheads without the need to conduct 
nuclear testing. If confirmed, I look forward to learning more about 
RRW and the relationship of performance margins versus uncertainties. 
Determining RRWs viability from the standpoint of the required science 
is a valuable endeavor. The decision to proceed to production, with or 
without testing, would be a matter for debate at the highest levels and 
involve a value judgment relative to a policy decision. If an RRW 
design leads to a recommendation to conduct a full scale nuclear test, 
there is certainly the option to do a modification to the design rather 
than a cancellation of the RRW program. The prudent course of action, 
in my view, requires us to know the full range of alternatives and only 
then choose a way ahead based on a critical analysis that considers our 
national security needs. The premise of RRW is sound, if the U.S. is to 
maintain a long-term safe, secure and reliable nuclear deterrent; it 
may need adjustments rather than cancellation.

                        COMPLEX RECONFIGURATION

    Question. If confirmed you will play a key role in the steps to 
modernize and downsize the nuclear weapons complex. This is a needed 
but difficult process.
    If confirmed, would you review whether an external commission such 
as a Base Realignment and Closure-type process would be helpful or is 
needed to accomplish such downsizing and modernization?
    Answer. If confirmed, Complex Transformation will be a key 
initiative that I will pursue as Deputy Administrator. As part of that 
process, I understand that external commissions such as a Base 
Realignment and Closure-type process have been considered but not 
thought to be appropriate for this situation. While I am not yet in an 
informed enough position to challenge that position, I will discuss the 
issue carefully with those who came to that conclusion. I also 
understand that NNSA is following the well-established National 
Environmental Policy Act process for informing its decisions on Complex 
Transformation, and there will be opportunities for comment by the 
public and other interested stakeholders.

                         THIRD-PARTY FINANCING

    Question. If confirmed, would you agree to carefully review all 
proposals for third-party financing and ensure that before 
implementation the proposal will be cost effective and is consistent 
with all DOE, Office of Management and Budget, and General Services 
Administration rules and regulations as appropriate?
    Answer. Yes. If confirmed, I would carefully review all proposals 
for third-party financing of Defense Programs facilities to ensure that 
before implementation, the proposal is cost-effective and consistent 
with all applicable rules and regulations.

                     FACILITIES AND INFRASTRUCTURE

    Question. The Facilities and Infrastructure Recapitalization 
Program was established to address long-deferred maintenance backlogs 
in the nuclear weapons complex, particularly at the manufacturing 
facilities.
    If confirmed, what steps would you take to ensure that surplus 
buildings are torn down or transferred so that they will not need long-
term maintenance?
    Answer. If confirmed, Complex Transformation will be a key 
initiative that I will pursue as Deputy Administrator. A central part 
of Complex Transformation is ensuring that surplus buildings are torn 
down so that they will not need long-term maintenance or transferred to 
other programs that are committed to their proper maintenance. I expect 
to work closely with the Offices of Infrastructure and Environment 
within the NNSA and EM in DOE (and other organizations) to achieve 
these objectives. I understand that both of these Offices have well-
established programs for dealing with excess facilities. If confirmed, 
I will work with them to ensure that surplus buildings are torn down or 
transferred so that they will not need long-term maintenance funded by 
the Weapons Activities account. During the course of my military 
career, I served as a base commander on at least three occasions. While 
the governing directives are not exactly the same, I am familiar with 
issues like this and I will make every effort to pay close attention to 
these concerns.
    Question. Would you support including the cost of tearing down 
those buildings that are being replaced within the total project cost 
of any new construction?
    Answer. If confirmed, I would support steps to minimize financial 
liabilities on the Weapons Activities account, including the cost of 
tearing down those buildings that are being replaced within the total 
project cost of any new construction. To portray the full scope of 
projects, we must present the full scope and cost of new construction, 
to include demolition of old buildings.
    Question. What is your understanding of the schedule for tearing 
down the old administration building at LANL?
    Answer. I understand that the Nuclear Security and Science Building 
project at LANL was completed on schedule and approximately $5 million 
under budget in 2006. Once the remaining personnel have been relocated 
from the old administration building in early fiscal year 2008, NNSA's 
plan is to close the entire facility and prepare it for completion of 
Decontamination and Demolition (D&D). NNSA's current strategy is to 
empty the facility by the close of fiscal year 2008 and complete D&D by 
fiscal year 2011.
    Question. DOE and NNSA often build one of a kind or first of a kind 
buildings.
    If confirmed, what steps would you take to ensure that NNSA 
construction projects are managed to be completed within budget and on 
time?
    Answer. If confirmed, one of my highest priorities will be to 
demand accountability across the nuclear weapons complex, in both the 
Federal and contractor workforce. We must keep commitments, to include 
meeting key milestones for cost and schedule on construction projects. 
I understand that improving project management is one of the six 
``Focus Areas'' that is already being emphasized by NNSA. I will 
quickly learn more about this and the other focus areas, and ask 
fundamental questions such as: 1) do we have the right people in place 
to do the job; 2) are we using all available resources, within NNSA, 
within DOE, and even outside DOE; and 3) are the commitments we have 
made still reasonable (have circumstances or requirements changed)? I 
will work with the Federal Project Directors within NNSA and look for 
help from all available sources. Recognizing the importance of project 
management, in addition to my usual ``courtesy calls'' as the nominee, 
I have met with staff from the Office of Facility and Infrastructure 
Acquisition and Operations and the Office of Infrastructure and 
Environment to discuss both general project management within NNSA and 
to review progress on specific high-profile projects.
    Question. What additional costing, project management and design 
skills do you believe are needed in the Federal staff of the Office of 
Defense Programs or in the NNSA?
    Answer. I am not yet in a position to say what additional costing, 
project management and design skills are needed in the Federal staff of 
defense programs or NNSA, but I do understand this is an area of 
emphasis within NNSA. Because this is such an important area to the 
success of Complex Transformation and the very future of the nuclear 
weapons complex, I will ensure that good project management within 
defense programs remains a high priority and I will make every effort 
for the Federal and contractor staff to obtain the skills that are 
necessary for success. I also believe there needs to be a forum where 
all parties can bring suggestions forward to both arrive at the right 
conclusion, and to ensure the needed buy-in and cooperation that will 
garner broad support.
    Question. At what point in the Critical Decision time line do you 
believe an independent cost estimate should be performed for a 
construction project, and why?
    Answer. Based on my understanding of the Critical Decision 
timeline, I believe an Independent Cost Estimate should be performed 
for complex and high cost projects prior to setting the project 
baseline at Critical Decision 2 (Approve Performance Baseline). This is 
early enough in the process to make an impact and correct issues, but 
far enough along that there is appropriate fidelity in the estimated 
project design, scope, and schedule.
    Question. If confirmed, will you work to ensure that all design 
issues impacting operational safety requirements are fully resolved 
before Critical Decision 3?
    Answer. If confirmed, I will work to ensure that all design issues 
impacting operational safety requirements are fully resolved well 
before Critical Decision 3 (Approve Start of Construction). Due to the 
importance of operational safety requirements, they should be resolved 
as soon as possible in the design process, and certainly before 
construction begins. This is also consistent with the Department's 
draft standard, Integration of Safety into Nuclear Facility Design.
    Question. If confirmed, what steps will you take to ensure that 
nuclear and other operational safety issues are fully addressed in the 
design of new NNSA buildings?
    Answer. If confirmed, I intend to have defense programs follow the 
Department's standard, Integration of Safety into Nuclear Facility 
Design, once it is final. I understand that NNSA has been complying 
with the draft of the new standard and will operate in full compliance 
with the final version when implemented. This new standard requires 
early identification of Safety Class systems and other safety related 
requirements early in the project life cycle, just after approval of 
Mission Need. These measures ensure that all safety requirements are 
articulated, validated, and understood early in the project life cycle.

                        LIFE EXTENSION PROGRAMS

    Question. If confirmed, you will be responsible for managing the 
life extension programs (LEPs) for existing nuclear warheads.
    What is your general assessment of the effectiveness of the ongoing 
and planned life extension programs?
    Answer. I believe the LEPs are highly effective for extending the 
near-term life of warheads in the nuclear weapons stockpile, but I also 
strongly support transitioning the stockpile based on a RRW strategy. 
Based on my Air Force experience, I am intimately familiar with the 
LEPs for the W87 (Intercontinental Ballistic Missile warhead) and the 
B61-7/11 (strategic bombs). I understand there are production 
challenges with restarting a unique component needed for the W76 
(Submarine Launched Ballistic Missile warhead) LEP, but that is being 
appropriately addressed. I understand that more and more aging defects 
are being discovered in the legacy stockpile so refurbishment schedules 
will need to be closely coordinated and updated with the military 
service if an RRW strategy is not pursued. With smaller numbers in the 
existing stockpile inventory, the ability to substitute is almost not 
at option. Therefore the need for flexibility becomes increasingly 
important.
    Question. How well, in your view, does the nuclear weapons 
complex--encompassing the laboratories and the production sites--
function as an integrated complex and, externally, with the DOD in 
executing the LEPs?
    Answer. My impression is that the nuclear weapons complex, 
including all the sites, works relatively well together and with the 
DOD. In learning more about defense programs, I have been struck at how 
often I hear about the integrated complex succeeding together. I 
understand that there is a strong emphasis on complex-wide milestones 
and that even performance fees at each of the sites are inter-related. 
That is an extremely strong motivator for integrated success, and one 
that I would plan to continue, if confirmed. Thanks to the vision of 
the current leadership in DOE and NNSA, I see an even stronger 
partnership with the Air Force than when I was Director of Nuclear and 
Counterproliferation.
    Question. Do you believe the efficiency with which NNSA manages the 
execution of the LEPs can be improved, and if so, how?
    Answer. I am not yet aware of a specific way to improve the 
management of the LEP, but because of their importance to Defense 
Programs and the continued health of the nuclear weapons stockpile, I 
expect to personally review the execution of the LEPs, if confirmed. My 
fresh perspective, coming from the outside of NNSA and as a former DOD 
``customer'' may allow me to identify areas for improvement.

                        NOTIFICATION OF CONGRESS

    Question. If confirmed, would you commit to promptly notifying 
Congress of any significant issues in the safety, security or 
reliability of the nuclear weapons stockpile?
    Answer. Yes. If confirmed, I would promptly notify Congress of any 
issues affecting the nuclear weapons stockpile and nuclear weapons 
complex. I understand that the officials in the Office of Defense 
Programs often brief congressional members and their staffs about the 
state of the stockpile and complex. I would continue that practice, 
both when there are emerging issues and even if there are not. 
Continuous communication is to everyone's advantage. Having served in 
the Air Force congressional liaison offices of the Senate and the 
House, I am a strong believer in open dialogue. I pledge to make myself 
and/or a knowledgeable staff member available at any time to address 
any issues of concern.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Deputy Administrator for 
Defense Programs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Daniel K. Akaka

                    NUCLEAR MISSILES TRANSPORTATION

    1. Senator Akaka. General Smolen, last month, six nuclear-armed 
advanced cruise missiles were flown from Minot Air Force Base in North 
Dakota to Barksdale Air Force Base in Louisiana where they sat on the 
tarmac for 10 hours undetected. Much of the media attention on this 
incident seems to have missed the key issue: how did six nuclear cruise 
missiles get lost? Lost seems to be the appropriate characterization 
here because the Air Force did not appear to know where the missiles 
were.
    General Smolen. This event was very disturbing. Since I retired, 
effective August 1, 2007, and I am not yet confirmed, my knowledge of 
the specific events surrounding this issue is limited to what I read in 
the media and second hand information from friends. Since I have not 
been a party to the facts, it is inappropriate for me to comment 
further at this time. Please be assured, however, that if confirmed, I 
will ensure our personnel in National Nuclear Security Administration 
(NNSA) review the circumstances as they become available and we will 
apply any lessons we can learn.

    2. Senator Akaka. General Smolen, it is my understanding that there 
is a strict chain of custody for all nuclear weapons, and that the 
handling of these weapons is covered in great detail in Air Force 
procedures and regulations. This fact makes it even harder to believe 
that a mistake of this magnitude could happen. Every person who orders 
the movement of these weapons, or handles them, would have had to sign 
off on the movement. One does not just quickly move a 1-ton cruise 
missile, or six of them for that matter, and then ``forget about 
them.''
    Obviously, we need to know how six nuclear cruise missiles got out 
of their bunkers and onto a combat aircraft without being noticed by 
the wing commander, squadron commander, munitions maintenance squadron, 
the bomber's crew chief and command pilot, and moved onto another Air 
Force base without being noticed by the receiving air base's staff for 
10 hours.
    Secretary Gates has appropriately ordered an independent 
investigation of the incident, in addition to the Air Force's own 
inquiry.
    Does it seem credible to you that this many people would 
simultaneously make a mistake of this magnitude and lose track of six 
nuclear missiles? If so, how do you think this could have happened?
    General Smolen. Any comments I make without having the factual 
information would be pure speculation. NNSA focuses completely on 
nuclear weapons and thus there should be no diversion of attention on 
any other aspect of our mission. Again, without more specifics on what 
really contributed to the Minot incident, we can only review in general 
terms our own procedures and emphasize continued strict adherence to 
checklists and procedures.

    3. Senator Akaka. General Smolen, in your opinion, how does this 
incident relate to concern for reliability of control over nuclear 
weapons and nuclear materials in other countries, such as Russia and 
Pakistan?
    General Smolen. Human error and the chance of human error must be 
eliminated by every extent possible. The very fact that something of 
this nature happened highlights our need to always be vigilant and work 
cooperatively with every country that possesses nuclear weapons and 
materials. We have been very successful in building bonds of trust and 
confidence and reducing nuclear weapons and dangerous materials. Those 
efforts are centered in NNSA's Defense Nuclear Nonproliferation (DNN) 
programs and if confirmed, I'll personally offer any assistance that 
will further my colleague Will Tobey's, Deputy Administrator for DNN, 
leadership efforts for progress in these critical areas. NNSA's Defense 
Programs and DNN organizations share many common interests and have a 
synergy.

    4. Senator Akaka. General Smolen, in your opinion, if this were an 
accident, do you have concerns about the readiness of our military 
personnel when they are making critical mistakes with our nuclear 
arsenal? If so, how do we best address this?
    General Smolen. I was honored to serve as a senior military leader 
for a number of years and I can assure you America's sons and daughters 
are the most dedicated, patriotic, and responsible young men and women 
in our Nation. I am fully and equally confident that senior leadership 
in the Department of Defense will take every step necessary to ensure 
that whatever contributed to this error is corrected. NNSA will review 
every aspect of how we do business to ensure no elements exist that 
could lead to any similar event with weapons and materials under our 
control. I'm certain the USAF will correct whatever went wrong. As 
recently reported, they will also hold accountable everyone who may 
have failed to follow required directives, or provide the required 
oversight and leadership. Because the overall bomber emphasis is now 
far more centered on conventional missions, some of the historically 
intense focus attributed to the nuclear missions may have eroded. If 
that is a factor, it most certainly will be addressed. In that regard, 
organization, training, experience, and oversight must all be 
considered. We can and will learn from this. I'm confident it will 
serve to eliminate any complacency that may have existed while 
simultaneously emphasizing the critical importance of the need for 
constant vigilance and focus-traits demanded of all personnel handling 
nuclear weapons.

    5. Senator Akaka. General Smolen, I find it somewhat disturbing 
that Barksdale is an operational bomber base that is also a staging 
area for Middle Eastern operations. In your opinion, are there 
legitimate, non-war related, operational, or logistical reasons for 
shipping nuclear missiles to Barksdale at this time? If so, what are 
some of the possible reasons?
    General Smolen. Based on my previous military service, I can tell 
you that virtually every military base in our Nation plays some role in 
the deployment supporting the global war on terror. Our aircraft and 
personnel deploy to a variety of overseas locations. With a limited 
number of bases, combat platforms, people, and storage areas, it is 
quite common to see multiple missions at a variety of locations. 
Training, maintenance, and logistical support are a matter of routine 
and conducted regularly and professionally. The important aspect is to 
uncover the fact or series of circumstances that led to what happened 
and put in place ironclad procedures to ensure it cannot happen 
anywhere again.
                                 ______
                                 
    [The nomination reference of Maj. Gen. Robert L. Smolen, 
USAF, (Ret.) follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 31, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Robert L. Smolen, of Pennsylvania, to be Deputy Administrator for 
Defense Programs, National Nuclear Security Administration, vice Thomas 
P. D'Agostino.
                                 ______
                                 
    [The biographical sketch of Maj. Gen. Robert L. Smolen, 
USAF, (Ret.), which was transmitted to the committee at the 
time the nomination was referred, follows:]

                Biographical Sketch of Robert L. Smolen

    Major General (Ret.) Robert L. Smolen was nominated by the 
President on July 31, 2007 to serve, pending confirmation by the United 
States Senate, as the Deputy Administrator for Defense Programs at the 
National Nuclear Security Administration. From 1974 to 2007, he served 
his country with honor in the United States Air Force (USAF).
    Prior to being nominated, Smolen served as Commander for the Air 
Force District of Washington (AFDW) located at Bolling Air Force Base 
in Washington, DC. The Air Force District of Washington provides the 
single Air Force voice and component to the Joint Forces Headquarters-
National Capital Region, as well as organizes, trains and equips combat 
forces for the aerospace expeditionary forces, homeland operations, 
civil support, national special security events and ceremonial events. 
In addition, AFDW serves as the Uniform Code of Military Justice 
authority for more than 40,000 personnel and provides major command-
level support for more than 24,000 personnel assigned worldwide.
    Smolen entered the Air Force in 1974 as a distinguished graduate of 
the Air Force ROTC program at Allegheny College in Meadville, PA. He 
has operational experience in both ground and airborne nuclear missile 
command and control. He served on the staff of the Secretary of Defense 
and was the Director of Manpower and Personnel on the Joint Chiefs of 
Staff. He twice served in the Office of the Secretary of the Air Force 
in the Office of Congressional Legislative Liaison on Capitol Hill, 
first in the House of Representatives and later as the Chief of the 
Senate office. He was both the Deputy and later the Director of the Air 
Force Office of Nuclear and Counterproliferation, Headquarters U.S. Air 
Force. Smolen held positions on the staff at Headquarters North 
American Aerospace Defense Command and Headquarters Air Training 
Command.
    He has commanded units at the squadron, group, wing, and Major 
Command levels at Air Force Space Command, Pacific Air Forces, Air 
Force Materiel Command, and Headquarters USAF. He recently served as 
the Director, Strategic Capabilities Policy, Executive Office of the 
President, where he was responsible for the development, coordination, 
and implementation of national security policies to support the 
President and the National Security Council. In this capacity he also 
served as the senior ranking military officer on the White House 
complex.
    Smolen holds a Bachelor of Arts degree in communications from 
Allegheny College located in Meadville, PA. He also holds graduate 
degrees in public administration from the University of Oklahoma, and 
international relations from Auburn University. He attended the Air War 
College located at Maxwell Air Force Base, Alabama. In addition, he was 
a fellow at both in the Seminar XXI Program, Foreign Policy and the 
National Interest, at the Massachusetts Institute of Technology and the 
National and International Security Program at the John F. Kennedy 
School of Government at Harvard University. He has also completed 
several seminars at Johns Hopkins University in national security 
decisionmaking.
    Smolen presently resides in Springfield, VA, with his wife Adriane. 
They have been married for over 33 years and have three adult children.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Maj. Gen. 
Robert L. Smolen, USAF, (Ret.) in connection with his 
nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Robert Lee Smolen, (Bob).

    2. Position to which nominated:
    Deputy Administrator for Defense Programs, National Nuclear 
Security Administration, Department of Energy.

    3. Date of nomination:
    July 31, 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    February 9, 1952; San Diego, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Adriane Renee Andree.

    7. Names and ages of children:
    Amanda, 30; Robert, 27; Emily, 24.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Allegheny College, Meadville, PA -- Bachelor of Arts, 1974.
    University of Oklahoma, Norman, OK -- Master of Public 
Administration, 1976.
    Auburn University, Montgomery, AL -- Master of Political Science, 
1985.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Retired August 1, 2007. United States Air Force (Major General).
    Commander, Air Force District of Washington, USAF, Washington, DC, 
April 2006-August 2007.
    Director, Strategic Policy and Arms Control, National Security 
Council Staff, The White House, Washington, DC, August 2004-April 2006.
    Director, Nuclear and Counterproliferation, HQ USAF, The Pentagon, 
Washington, DC, May 2002-August 2004.
    Director, Manpower and Personnel (J-1), Office of the Joint Chiefs 
of Staff, The Pentagon, Washington, DC, December 1999-May 2002.
    Deputy Director, Nuclear and Counterproliferation, HQ USAF, The 
Pentagon, Washington, DC, February 1998-December 1999.
    Commander, 72nd Air Base Wing, Tinker Air Force Base, USAF, 
Oklahoma, July 1996-February 1998.
    Chief, Air Force Senate Liaison Office, Office of the Secretary of 
the Air Force, Russell Building, Washington, DC, July 1995-July 1996. 

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Board of Directors, Army Air Force Mutual Aid Association
    Member, Board of Directors, National Capitol Council, Boy Scouts of 
America
    Member, Pi Sigma Alpha, National Political Science Honor Society
    Lifetime Member of the Board of Regents, National Eagle Scout 
Association
    Lifetime Member of the American Legion
    Lifetime Member of the Veterans of Foreign Wars
    Lifetime Member of the Air Force Association
    Lifetime Member of the Military Officers Association
    Member, Former Governors Association, American Red Cross

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Air Force Distinguished Service Medal (2)
    Defense Superior Service Medal (2)
    Legion of Merit
    Defense Meritorious Service Medal
    Meritorious Service Medal (4)
    Joint Service Commendation Medal
    Air Force Commendation Medal (2)
    Joint Service Achievement Medal
    Air Force Achievement Medal
    Combat Readiness Medal
    National Defense Service Medal (3)
    Global War on Terrorism Service Medal
    Korea Defense Service Medal
    Distinguished Eagle Scout Award

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Attached are the following speeches:
    [Nominee responded and the information is contained in the 
committee's executive files.]

    1. Air Force District of Washington Contracting Conference, 
November 14, 2006.
    2. Speech to Quarterly Meeting of the DW Steel Chapter of the Air 
Force Association, April 10, 2007.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Robert L. Smolen.
    This 11th day of September, 2007.

    [The nomination of Maj. Gen. Robert L. Smolen, USAF, 
(Ret.), was reported to the Senate by Chairman Levin on 
November 15, 2007, with the recommendation that the nomination 
be confirmed. The nomination was confirmed by the Senate on 
November 16, 2007.]

 
     TO CONSIDER CERTAIN PENDING CIVILIAN AND MILITARY NOMINATIONS

                              ----------                              


                      THURSDAY, NOVEMBER 15, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:56 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Byrd, Reed, 
Akaka, Ben Nelson, Pryor, Webb, Warner, Inhofe, Sessions, 
Collins, Martinez, and Corker.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; Creighton Greene, professional staff 
member; Gerald J. Leeling, counsel; Peter K. Levine, general 
counsel; and William K. Sutey, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Derek J. Maurer, minority counsel; Sean G. 
Stackley, professional staff member; Kristine L. Svinicki, 
professional staff member; Diana G. Tabler, professional staff 
member; and Richard F. Walsh, minority counsel.
    Staff assistants present: Fletcher L. Cork, Jessica L. 
Kingston, and Benjamin L. Rubin.
    Committee members' assistants present: Jay Maroney, 
assistant to Senator Kennedy; James Tuite, assistant to Senator 
Byrd; Frederick M. Downey, assistant to Senator Lieberman; 
Elizabeth King, assistant to Senator Reed; Bonni Berge, 
assistant to Senator Akaka; M. Bradford Foley, assistant to 
Senator Pryor; Gordon I. Peterson, assistant to Senator Webb; 
Stephen C. Hedger, assistant to Senator McCaskill; Anthony J. 
Lazarski, assistant to Senator Inhofe; Mark J. Winter, 
assistant to Senator Collins; Matthew R. Rimkunas, assistant to 
Senator Graham; and Brian W. Walsh, assistant to Senator 
Martinez.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. I would now ask the committee to consider 3 
civilian nominations and a list of 135 pending military 
nominations.
    First, ask the committee to consider the nomination of John 
Young, Jr., to be Under Secretary of Defense for Acquisition, 
Technology, and Logistics. His nomination has been before the 
committee the required length of time. Is there a motion to 
favorably report the nomination of Secretary Young?
    Senator Warner. So moved.
    Chairman Levin. It has been moved. Is there a second?
    Senator Reed. I second.
    Chairman Levin. All in favor, say aye. [A chorus of ayes.]
    All opposed, nay. [No response.]
    The motion carries.
    Second, I would ask the committee to consider the 
nomination of Douglas Brook to be Assistant Secretary of the 
Navy for Financial Management and Comptroller. His nomination 
has been before the committee the required length of time. Is 
there a motion to favorably report that nomination?
    Senator Warner. So moved.
    Senator Reed. Second.
    Chairman Levin. Seconded. All in favor, say aye. [A chorus 
of ayes.]
    The motion carries.
    Next, I ask the committee to consider the nomination of 
Robert Smolen to be Deputy Administrator for Defense Programs, 
National Nuclear Security Administration. Is there a motion to 
favorably report that nomination?
    Senator Warner. So moved.
    Chairman Levin. Is there a second?
    Senator Collins. Second.
    Chairman Levin. All those in favor, say aye. [A chorus of 
ayes.]
    The motion carries.
    Finally, I ask the committee to consider a list of 135 
pending military nominations. All of these nominations have 
been before the committee the required length of time. Is there 
a motion to favorably report?
    Senator Warner. So moved.
    Chairman Levin. Second?
    Senator Inhofe. Second.
    Chairman Levin. All those in favor, say aye. [A chorus of 
ayes.]
    Nays? [No response.]
    The ayes have it. The motion carries. Thank you very much.

    [The nomination reference of John J. Young, Jr., follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 21, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    John J. Young, Jr., of Virginia, to be Under Secretary of Defense 
for Acquisition, Technology, and Logistics, vice Kenneth J. Krieg.
                                 ______
                                 
    [The nomination reference of Douglas A. Brook follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      June 5, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Douglas A. Brook, of California, to be an Assistant Secretary of 
the Navy, vice Richard Greco, Jr., resigned.
                                 ______
                                 
    [The nomination reference of Robert L. Smolen follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 31, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Robert L. Smolen, of Pennsylvania, to be Deputy Administrator for 
Defense Programs, National Nuclear Security Administration, vice Thomas 
P. D'Agostino.
                                 ______
                                 
    [The list of nominations considered and approved by the 
committee follows:]
 Military Nominations Pending with the Senate Armed Services Committee 
 which are Proposed for the Committee's Consideration on November 15, 
                                 2007.
    1. Lt. Gen. Carrol H. Chandler, USAF, to be general and Commander, 
Pacific Air Forces; Air Component Commander for United States Pacific 
Command; and Executive Director, Pacific Air Combat Operations Staff 
(Reference No. 477).
    2. COL Donald L. Rutherford, USA, to be brigadier general 
(Reference No. 997).
    3. In the Army, there are three appointments to the grade of 
brigadier general (list begins with Joseph Caravalho, Jr.) (Reference 
No. 998).
    4. LTG Thomas F. Metz, USA, to be lieutenant general and Director, 
Joint Improvised Explosive Device Defeat Organization (Reference No. 
1016).
    5. In the Air Force, there is one appointment to the grade of 
captain (Michael V. Siebert) (Reference No. 1017).
    6. In the Air Force, there are three appointments to the grade of 
major (list begins with Brian D. Oneil) (Reference No. 1018).
    7. In the Army Reserve, there is one appointment to the grade of 
colonel (Anthony Barber) (Reference No. 1019).
    8. In the Army Reserve, there is one appointment to the grade of 
colonel (Tim C. Lawson) (Reference No. 1020).
    9. In the Army Reserve, there is one appointment to the grade of 
colonel (Richard D. Fox II) (Reference No. 1021).
    10. In the Army Reserve, there is one appointment to the grade of 
colonel (John G. Goulet) (Reference No. 1022).
    11. In the Army Reserve, there is one appointment to the grade of 
colonel (David L. Patten) (Reference No. 1023).
    12. In the Army, there are 51 appointments to the grade of 
lieutenant colonel and below (list begins with Mark J. Benedict) 
(Reference No. 1024).
    13. In the Marine Corps, there is one appointment to the grade of 
lieutenant colonel (Melvin L. Chattman) (Reference No. 1025).
    14. In the Marine Corps, there are seven appointments to the grade 
of major (list begins with Dana R. Brown) (Reference No. 1026).
    15. In the Navy, there are 60 appointments to the grade of 
lieutenant commander (list begins with Julian D. Arellano) (Reference 
No. 1027).
    16. MG Jeffrey A, Sorenson, USA, to be lieutenant general and Chief 
Information Officer/G-6, Office of the Secretary of the Army (Reference 
No. 1038).
    Total: 135.

    [Whereupon, at 9:58 a.m., the committee adjourned.]

 
NOMINATIONS OF MARY BETH LONG TO BE ASSISTANT SECRETARY OF DEFENSE FOR 
 INTERNATIONAL SECURITY AFFAIRS; JAMES SHINN TO BE ASSISTANT SECRETARY 
OF DEFENSE FOR ASIAN AND PACIFIC SECURITY AFFAIRS; CRAIG W. DUEHRING TO 
   BE ASSISTANT SECRETARY OF THE AIR FORCE FOR MANPOWER AND RESERVE 
AFFAIRS; AND JOHN H. GIBSON TO BE ASSISTANT SECRETARY OF THE AIR FORCE 
                        FOR FINANCIAL MANAGEMENT

                              ----------                              


                       TUESDAY, DECEMBER 18, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m. in 
room SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Webb, Warner, 
and Thune.
    Other Senators present: Senator Norm Coleman.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Madelyn R. Creedon, counsel; Evelyn N. Farkas, professional 
staff member; Michael J. Kuiken, professional staff member; 
Gerald J. Leeling, counsel; Peter K. Levine, general counsel; 
Michael J. McCord, professional staff member; and William G.P. 
Monahan, counsel.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; David G. Collins, research 
assistant; Derek J. Maurer, minority counsel; David M. Morriss, 
minority counsel; Lynn F. Rusten, professional staff member; 
Kristine L. Svinicki, professional staff member; Diana G. 
Tabler, professional staff member; Richard F. Walsh, minority 
counsel; and Dana W. White, professional staff member.
    Staff assistants present: Kevin A. Cronin, Ali Z. Pasha, 
and Benjamin L. Rubin.
    Committee members' assistants present: Jay Maroney, 
assistant to Senator Kennedy; Elizabeth King, assistant to 
Senator Reed; Richard Kessler, assistant to Senator Akaka; 
Gordon I. Peterson, assistant to Senator Webb; Sandra Luff, 
assistant to Senator Warner; Todd Stiefler, assistant to 
Senator Sessions; Brian Polley, assistant to Senator Cornyn; 
and Stuart C. Mallory, assistant to Senator Thune.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    Today the Senate Armed Services Committee considers the 
nomination of Mary Beth Long to be Assistant Secretary of 
Defense for International Security Affairs; James Shinn to be 
Assistant Secretary of Defense for Asian and Pacific Security 
Affairs; Craig Duehring to be Assistant Secretary of the Air 
Force for Manpower and Reserve Affairs; and John Gibson to be 
Assistant Secretary of the Air Force for Financial Management.
    We welcome our nominees and their families to today's 
hearing. We know of the long hours which senior Department of 
Defense (DOD) officials put in every day, we appreciate the 
sacrifices our nominees are willing to make to serve our 
Nation, but we also know that they're not alone in making these 
sacrifices. So we thank in advance the family members of our 
nominees for the support and assistance that they will be 
providing.
    In the last 2 years, Ms. Long has served as Principal 
Deputy Assistant Secretary of Defense for International 
Security Affairs and, if confirmed, she will be responsible for 
helping formulate DOD policy in the Middle East, Europe, and 
North Atlantic Treaty Organization (NATO) and Africa. Foremost 
of these challenges will be the situation in Iraq, where there 
is no indication that Iraq's political leaders are taking 
advantage of the breathing space created by a reduction in 
violence to make the political compromises necessary for 
reconciliation, and in Afghanistan, where we continue to try to 
persuade our NATO allies to step up and provide the troops, 
equipment, and trainers needed for the success of our mission, 
and where NATO's reputation is on the line.
    Almost as challenging is our policy towards Iran, where a 
new National Intelligence Estimate (NIE) found that Iran halted 
its nuclear weapons program in the fall of 2003, but it also 
found that Iran could resume that program very easily and 
therefore, given its bellicose rhetoric and support for 
terrorists, remains a major threat.
    Over the last 4 years, Dr. Shinn has served first as 
National Intelligence Officer for East Asia on the National 
Intelligence Council and more recently as Principal Deputy 
Assistant Secretary of Defense for Asian and Pacific Security 
Affairs. If confirmed, Dr. Shinn will be responsible for DOD 
policy in an area that encompasses more than half the world's 
population. The challenges that he faces will include the use 
of Pakistani territory as a haven by al Qaeda and the Taliban, 
the unstable situation in Afghanistan and Pakistan themselves, 
and managing the U.S. relationship with the growing economic 
and military power of China.
    Mr. Duehring has served the DOD as Principal Deputy 
Assistant Secretary of Defense for Reserve Affairs. If 
confirmed, he will face the challenge of managing the 
downsizing of the Active Duty Air Force without sacrificing the 
ability of the Department to accomplish its national security 
mission.
    Mr. Gibson has served the DOD as Deputy Under Secretary of 
Defense for Management Reform and Acting Deputy Under Secretary 
of Defense for Financial Management and, if confirmed, he will 
face the challenge of modernizing the Air Force's business 
systems so that they can provide the timely, accurate, and 
reliable financial information needed to manage the Department.
    We wish our nominees well as they take on these challenges. 
We'll ask you later on as you make your opening comments to 
introduce your families if they are with you. Now I'll call on 
Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman.
    I had the privilege yesterday of having an extensive 
opportunity to visit with each of these nominees and my first 
observation is as citizens we're very fortunate that four very, 
very capable individuals are stepping up to serve once again 
another chapter in their already distinguished public service 
careers.
    At this point in time in any administration, lots of folks 
are thinking of how they can best plan their next chapter, 
usually in the private sector. But each of these individuals 
have served with distinction in the DOD and now are willing to 
accept another level of promotion and finish out presumably 
this term of the presidency of George Bush. So we're fortunate 
in that context.
    I've also had the opportunity to meet the families and at 
the appropriate time I'd be delighted to have you introduce 
them, because families are a very essential part of your 
ability to perform these tasks. Having served in the Department 
myself for many years a long time ago, I know the long hours, 
the separation from family that's occasioned by these arduous 
challenges that you're going to accept, and without that 
support you simply cannot perform your duties as ably as you 
must.
    So with that, Mr. Chairman, let us proceed. Thank you.
    Chairman Levin. Thank you so much, Senator Warner.
    Let me now ask each of you the standard questions which we 
ask of all nominees that appear before this committee, and you 
can answer it all at once. First, have you adhered to 
applicable laws and regulations governing conflicts of 
interest?
    Ms. Long. Yes, sir.
    Mr. Shinn. Yes, sir.
    Mr. Duehring. Yes, sir.
    Mr. Gibson. Yes, sir.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Ms. Long. No.
    Mr. Shinn. No.
    Mr. Duehring. No.
    Mr. Gibson. No.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    Ms. Long. Yes, sir.
    Mr. Shinn. Yes, sir.
    Mr. Duehring. Yes, sir.
    Mr. Gibson. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Ms. Long. Yes, sir.
    Mr. Shinn. Yes, sir.
    Mr. Duehring. Yes, sir.
    Mr. Gibson. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Ms. Long. Yes, sir.
    Mr. Shinn. Yes, sir.
    Mr. Duehring. Yes, sir.
    Mr. Gibson. Yes, sir.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Ms. Long. Yes, sir.
    Mr. Shinn. Yes, sir.
    Mr. Duehring. Yes, sir.
    Mr. Gibson. Yes, sir.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    Ms. Long. Yes, sir.
    Mr. Shinn. Yes, sir.
    Mr. Duehring. Yes, sir.
    Mr. Gibson. Yes, sir.
    Chairman Levin. Let me start with you, Ms. Long. Will you 
give us your opening comments and introduce anybody you might 
wish to introduce to us?

   STATEMENT OF MARY BETH LONG, TO BE ASSISTANT SECRETARY OF 
           DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS

    Ms. Long. Thank you, Mr. Chairman, Senator Warner, members 
of the committee. Thank you for the opportunity to come here 
today for this confirmation hearing. I'm deeply honored that 
President Bush and Secretary Gates nominated me for the 
position of the Assistant Secretary of Defense for 
International Security Affairs. If confirmed, I look forward to 
working closely with the committee, with the United States 
Senate, and with your colleagues in the House of 
Representatives in a spirit of true bipartisanship to advance 
the security of the United States.
    I'd like at this time to introduce and to thank my 
Pennsylvania family: my mother, Betsy Long, and my father, Ken 
Long, who are sitting behind me; my brother-in-law, Dan Herman; 
as well as my Alexandria family who are here to support me.
    There are some issues that are so vital to our Nation that 
we cannot be effective in meeting these challenges unless 
Congress and the President work together. So I look forward, if 
I am confirmed, to working with this committee to meet those 
challenges. In my time thus far in the Department I have been 
privileged to work with this committee and its staff on a 
number of issues and I look forward to doing so in the future, 
if confirmed.
    Thank you.
    Chairman Levin. Thank you so much, Ms. Long.
    Mr. Shinn?

STATEMENT OF JAMES SHINN, TO BE ASSISTANT SECRETARY OF DEFENSE 
             FOR ASIAN AND PACIFIC SECURITY AFFAIRS

    Mr. Shinn. Thank you, Chairman Levin, Senator Warner, other 
members of the committee. Thank you for the opportunity to 
appear before you today. I'm grateful to President Bush for his 
confidence in putting forward this nomination and to Secretary 
Gates for his support. If confirmed, I look forward to working 
with this committee and other Members of Congress on Asian 
affairs.
    I'd like to, if I may, acknowledge my wife, Masako, who's 
not here. She's with my daughter in school today. We've been 
married for more than 25 years and I'd like to acknowledge her 
for her love and support in this job.
    Chairman Levin. We thank you for that. Okay, thank you.
    Senator Coleman, are you ready to make an introduction?

STATEMENT OF HON. NORM COLEMAN, U.S. SENATOR FROM THE STATE OF 
                           MINNESOTA

    Senator Coleman. I am ready, Mr. Chairman, and it comes, I 
believe, at an opportune time. I thank you, Mr. Chairman and 
Senator Warner, for the opportunity to be with you today, and 
it's my great honor to come before you today to introduce Craig 
Duehring from our home State of Minnesota. Mr. Duehring is the 
embodiment of the old saying, ``Make service your first 
priority and success will follow.'' His service began in 1968, 
shortly after completing his studies at Minnesota State 
University at Mankato in southern Minnesota. Within a year he 
had deployed to Vietnam, where he completed over 800 missions 
during the Vietnam War as a forward air controller. Throughout 
his 28 years in the Air Force, Mr. Duehring flew more than a 
dozen types of aircraft, amassing over 1,200 hours in the A-10 
Thunderbolt II.
    His military awards and decorations include the Silver 
Star, the Defense Superior Service Medal, 2 Distinguished 
Flying Crosses, three Meritorious Service Medals, 27 Air 
Medals, 2 Air Force Commendation Medals, the Vietnamese Cross 
of Gallantry Individual Award, and the Vietnamese Staff Service 
Honor Medal First Class. You must have a strong chest to carry 
those medals.
    Mr. Duehring is also a recipient of the Air Force's highest 
individual award for leadership in the senior officer category, 
the Lance P. Sijan Award.
    Mr. Duehring's service since retiring from the Air Force 
has been equally impressive. Prior to his current assignment, 
Mr. Duehring served 6 years as a Principal Deputy Assistant 
Secretary of Defense for Reserve Affairs. He performed the 
duties of Acting Assistant Secretary of Defense for Reserve 
Affairs in the absence of the Assistant Secretary of Defense 
for Reserve Affairs, including an extended period during and 
following the attacks on September 11, 2001.
    Throughout these assignments Mr. Duehring has continued his 
connections to the North Star State. He has an excellent 
working relationship with the Adjutant General of the Minnesota 
National Guard, Larry Shellito, along with the entire Minnesota 
Guard organization.
    In the spring of 2005, I had the pleasure of touring 
Minnesota with Mr. Duehring to thank Minnesota's National 
Guardsmen and reservists for their service and to solicit their 
input on the challenges facing our citizen-soldiers and their 
families. When we stopped in Rochester, Minnesota, we had the 
chance to visit with Terry Wermagger and Linda Hauten, 
volunteers with the Family Readiness Group (FRG) in Austin, MN. 
The FRG serves the soldiers and families of Bravo Company, 
434th Main Support Battalion, Minnesota National Guard, which 
was deployed in support of Operation Iraqi Freedom at the time. 
The company included both Terry's and Linda's husbands.
    Mr. Duehring took the time to listen to concerns of those 
families and to find new ways to support their efforts with 
their FRG. He heard the story about the FRG raising more than 
$10,000 to assist local military families through the sale of 
3,000 yellow ribbon shirts and other items and he applauded the 
families for encouraging the community of Austin, MN, to set 
aside the 11th day of each month to recognize and support their 
soldiers and families.
    The point, Mr. Chairman, is that Mr. Duehring knows the 
personal impact of the work the Office of Reserve Affairs does 
every day. He knows what it means for the families who are 
dealing with their loved ones being overseas. He knows the 
value of reintegration for our troops returning home to 
civilian life and he knows how to make a positive impact on 
these families at a Federal level.
    Mr. Chairman, I am confident that Mr. Duehring will 
continue his excellent record of service in the position of 
Assistant Secretary of the Air Force for Manpower and Reserve 
Affairs and I look forward to and fully support his 
confirmation.
    Chairman Levin. Thank you so much, Senator Coleman, and we 
know you have to leave because you have a hectic schedule, as 
always. But we thank you very much.
    Senator Coleman. Thank you, Mr. Chairman.
    Chairman Levin. Mr. Duehring?

 STATEMENT OF CRAIG W. DUEHRING, TO BE ASSISTANT SECRETARY OF 
         THE AIR FORCE FOR MANPOWER AND RESERVE AFFAIRS

    Mr. Duehring. Thank you, Mr. Chairman, Senator Warner, and 
distinguished members of the committee. A special thank you to 
Senator Coleman for taking time out of his busy schedule to 
come and help a fellow Minnesotan along in a very important 
occasion.
    I would like to first introduce my wife, Terry Duehring, 
who's here with me today, as she always is and has been for 26-
plus years, going on 27 years. I'd also like to mention my 
father-in-law, Chief Master Sergeant Richard Blevins, Retired, 
United States Air Force. He joined the Air Force in 1947 when 
it became a separate service and retired in 1977. So this year 
is his 60th anniversary, just as it is for the United States 
Air Force. Dad, as you know him, has been an inspiration to me, 
a role model, and a mentor. He's here and his good wishes and 
his prayers will sustain me today.
    I'm honored to appear before you today as the President's 
nominee to become the Assistant Secretary of the Air Force for 
Manpower and Reserve Affairs. I'm also grateful to the 
Secretary of Defense and the Secretary of the Air Force for 
choosing me as their candidate for this important position. In 
June of this year the President appointed me to fill an 
existing vacancy as the acting Assistant Secretary, so I have 
had nearly 6 months learning the ropes and doing what I could 
to learn the issues that most affect the Air Force today, and 
to work with my colleagues to implement changes to policy 
within the limits of my appointment.
    One of my first goals was to get out and listen to the 
airmen and to their families, who will express their concerns 
in their own words. To that end, I visited 11 bases and 4 major 
headquarters in slightly over 2 months. My normal means of 
communication is a townhall format, where anyone can ask any 
question and make any statement. It is the fastest, most 
effective way I knew to take the pulse of what was happening in 
our Air Force today.
    When I answered the questions sent over last week by the 
committee, I identified four areas of concern which are a 
compilation of what I learned on those visits and what the 
Department has set as goals. Briefly, they were: one, 
continuing to fight the global war on terrorism; two, reduce 
the stress on our airmen and families; three, provide the best 
possible treatment for our wounded warriors; and four, 
recapitalize and prepare for the next war.
    Mr. Chairman, I have done what I could as a senior staff 
officer, but as an acting, my authority is limited. During the 
6 years that I was the Principal Deputy Assistant Secretary of 
Defense for Reserve Affairs, I appeared before congressional 
committees and panels nine times. During that same period, 
members of this committee and other congressional committees in 
concert with the DOD passed 168 separate legislative items that 
enhanced the effectiveness of and provided for the members of 
the Reserve component.
    I have never found anyone who recalls so much being done 
for our servicemembers in such a short period of time. It is an 
astounding achievement, a tribute to the teamwork that exists 
today. If confirmed, I will be able to take my place as a full 
member of that team and we will set even more records.
    I look forward to your questions.
    Chairman Levin. Thank you, Mr. Duehring.
    Mr. Gibson?

 STATEMENT OF JOHN H. GIBSON, TO BE ASSISTANT SECRETARY OF THE 
               AIR FORCE FOR FINANCIAL MANAGEMENT

    Mr. Gibson. Mr. Chairman, Senator Warner, and distinguished 
members of this committee: Thank you for the opportunity to 
appear today before this committee to be considered for the 
position of Assistant Secretary of the Air Force, Financial 
Management. I would like to recognize several family members 
with me today, without whose support none of this would be 
possible. My wife, Lauris, and my youngest son, Davis, are with 
me today. Unfortunately, my oldest son, Holden, could not be 
with us. However, as any parent of a teenager will empathize, 
when he professed his need to be in school I did not argue the 
point. I want to publicly thank them all for their tremendous 
sacrifice that they have made to allow me the chance to serve 
my country. Life in Texas was happy, productive, and stable, 
but they were willing, although not always enthusiastic, to 
join me in my quest to serve, and for this I owe them so very 
much.
    It is an honor to be nominated by the President and 
supported by Secretary Gates, Secretary England, and Secretary 
Wynne to serve in this position, and if confirmed, it will be a 
tremendous and challenging opportunity to serve in an 
organization of dedicated men and women in both the uniformed 
and the civilian forces who are consummate and dedicated 
professionals. This opportunity also has a very special 
personal meaning, as I will be joining the service of my 
father.
    If confirmed, it is my plan to work with these 
professionals to address the budgetary and financial management 
issues facing the Air Force, with the goal of maximizing the 
budgetary resources to meet the mission demands, and continuing 
to advance business operations, financial processes, and 
systems to improve Air Force financial management.
    Accountability, transparency, and communication are all 
fundamental philosophies of mine and if I am fortunate enough 
to be confirmed, I look forward to working closely with you, 
Mr. Chairman, this committee, and Congress on Air Force 
financial management issues.
    Thank you again for your consideration today and I look 
forward to your questions.
    Chairman Levin. Thank you so much, Mr. Gibson.
    Let me start with you, Ms. Long. The purpose of the surge 
of U.S. troops into Iraq at the beginning of the year was to 
reduce the violence in order to give the Iraqi political 
leaders the breathing space to make political compromises 
necessary for reconciliation. Prime Minister Maliki set out a 
series of legislative benchmarks--laws on de-Baathification, 
hydrocarbons, amnesty, disarmament--in September 2006. They 
were reaffirmed by the presidency council in October 2006. They 
were supposed to have been completed long ago.
    How many of the legislative benchmarks which the Iraqi 
government set for themselves have been achieved?
    Ms. Long. Senator, none of those benchmarks have been 
achieved.
    Chairman Levin. On a scale of A to F, what grade would you 
give the Maliki government?
    Ms. Long. Senator, at this time I would give the Maliki 
government an F.
    Chairman Levin. By the way, it's an 8-minute round. I think 
that will work for all of us.
    What are the mechanisms available to us to pressure the 
Maliki Government to work out these differences, to work out 
the political compromises which are essential to win the 
conflict? Without those political compromises, there's not 
going to be an end to the conflict. What are the pressure 
points that we can apply?
    Ms. Long. Senator, I share your concern that the national 
government chaired by Prime Minister Maliki has not performed 
in an exemplary manner by passing key legislative reform, and 
if confirmed, I will work with you and your committee to use 
all of those leverages that we have available to us to 
encourage the national government to move forward.
    I think there are a number of leverage points. Working with 
Congress, both General Petraeus and Ambassador Crocker serve as 
facilitators in working with the various blocs within the 
national government of Iraq in order to persuade them and to 
encourage them of the importance of the legislation.
    Of course, the presence of our troops in Iraq provides us a 
certain amount of leverage and influence in order to persuade 
the Iraqis of the need for legislative reform in order to 
secure the gains that we've already gained through the 
increased stability.
    Senator, we're also working with Iraq's neighbors to help 
the neighbors of Iraq influence that government, provide it 
with the security and confidence that it will be a stable 
presence in the region. Then of course, we work through the 
multinational and multilateral organizations to encourage them 
to help the Iraqis come to reconciliation and to pass these key 
legislative reforms.
    Chairman Levin. Thank you.
    Relative to our Iran policy, the recent NIE states that one 
of the Intelligence Community's key judgments is that in the 
fall of 2003 Teheran halted its nuclear weapons program. Are 
there any changes in our policy that result from this NIE?
    Ms. Long. Senator, I agree that the NIE is a watershed 
moment in our posture vis-a-vis Iran and that, if confirmed, I 
will work, again with your staff, to explore all the 
possibilities presented by the new intelligence. Probably the 
most significant opportunity is the Intelligence Community's 
more strongly held position that Iran did have hidden an 
illegal weapons program, and I think that the world, Iran, and 
the United States are all reassessing what the meaning of that 
more strongly held view is as an opportunity for Iran to come 
clean regarding the program. It also serves as an opportunity 
for the international community to understand the influence 
that it had exerted against Iran up until 2003, which led to 
this decision, was the right kind of influence. Furthermore, it 
is an opportunity to increase that in order to further Iran's 
transparency and its turn away from a nuclear program.
    Chairman Levin. So that the NIE presents opportunities, if 
it's accurate?
    Ms. Long. I think it does present opportunities, yes, 
Senator.
    Chairman Levin. You describe it as a watershed moment.
    Ms. Long. I think it's a watershed moment, Senator, in that 
for the first time the Intelligence Community from a moderate 
to a high confidence standard does believe and affirmed its 
earlier position that Iran had an illegal weapons program.
    Chairman Levin. Is there significance to their finding that 
that was suspended in 2003?
    Ms. Long. I think it is significant, Senator, in that it 
shows that the international pressure that was put on Iran up 
until that time had its effect and persuaded the Iranians to 
put aside the nuclear weapons program, at least at that time.
    Chairman Levin. If, in fact, they had suspended it, is that 
a significant fact?
    Ms. Long. If, in fact, they have suspended it, I believe 
that is a significant fact in that it shows that the pressure 
applied had an impact, Senator.
    Chairman Levin. Is that the only significance to it?
    Ms. Long. No, Senator, I think there are a number of other 
significances, as I alluded.
    Chairman Levin. All right.
    Dr. Shinn, let me ask you about China. The Quadrennial 
Defense Review identifies China as a likely competitor. Is it a 
foregone conclusion that China and the United States will be at 
odds over security in the Pacific?
    Mr. Shinn. I think that's probably the most important 
question that we face, Senator, going forward. I don't think 
it's a foregone conclusion by any means that we're bound to be 
competitors because of China's military buildup. But it could 
turn out that way.
    Chairman Levin. What actions should be taken to try to 
avoid an unhealthy competition?
    Mr. Shinn. Senator, I think the combination of engagement 
with the Chinese, military-to-military engagement in 
particular, can help remove the possibility for accidents, for 
example, and misunderstandings. On the other hand, I think 
equally important is for us to maintain our forces in readiness 
in the Pacific, to signal to the Chinese that we're serious 
about our defense commitments in the region.
    Chairman Levin. Mr. Duehring, let me ask you just one 
question and then I'll turn it over to Senator Warner. The 
Boston Globe in a recent paper reported that the administration 
has proposed a new regulation that would require the military 
Services to coordinate with the politically appointed general 
counsels before any member of the Judge Advocate General Corps 
could be promoted. Are you familiar with that?
    Mr. Duehring. Sir, the first time I heard of that was when 
somebody pointed out that very article yesterday afternoon. I 
honestly have no other information on that.
    Chairman Levin. We are going to be asking the 
administration if that is accurate, because this would 
effectively give civilian lawyers who are political appointees 
a veto over the recommendations of promotion boards. If that 
article is true, would you agree that that might be an 
inappropriate interference with the promotion board process?
    Mr. Duehring. Mr. Chairman, I'd like to look at it a little 
bit further, because I don't know if all the information is in 
that report. Sometimes that happens. It may be taken out of 
context, and I'd like to be able to prepare a decent statement 
perhaps at a later time.
    Chairman Levin. If you could give us your answer for the 
record after checking that out, we would appreciate that.
    Mr. Duehring. Yes, sir.
    [The information referred to follows:]

    Although I had seen the article from the Boston Goble, this matter 
has not yet formally come to my attention as it is currently in 
staffing to the Services. I am advised that it was not language 
developed by the Air Force, and that the Department of Defense is 
deleting that language from the draft instruction. That language will 
not be in the final version of the instruction.
    In summary, the language has been removed which should put the 
immediate issue to rest. Additionally, on a personal level, I believe 
that the ability of the Judge Advocate to provide independent advice 
should not be impaired. As I stated in testimony, there is no place in 
the promotion process for inappropriate political influence.

    Chairman Levin. My time is up. After Senator Warner, 
Senator Webb has kindly agreed that he will take over the gavel 
for a little while until I return. Thank you very much, Senator 
Webb. He'll be recognized after Senator Warner.
    Senator Warner.
    Senator Warner. Thank you very much, Mr. Chairman.
    Ms. Long, I'd like to return to the chairman's opening 
question, a very important one, about Iraq and how our 
President designed this policy, together with the regional 
military commanders, notably General Petraeus and Admiral 
Fallon, of the surge concept. Militarily, the surge has 
achieved its goal, namely to reduce the level of casualties, 
not only of the United States and other coalition forces, but 
of the civilians.
    One of the perhaps unintended consequences has been the 
proliferation of a lot of reconciliation at the bottom. It had 
been taking place in certain areas, particularly those sectors 
where the Marines had been operating for some time. But it 
seemed to flourish as the surge proceeded. Will that constitute 
some leverage on the central government which, as you very 
succinctly agreed with the chairman, has just not performed the 
responsibilities of a government of a sovereign nation to 
exercise the levers of sovereignty to the greater benefit of 
its citizens? It has failed to do that in many ways.
    So could you describe your understanding of what is taking 
place in terms of the bits and pieces of reconciliation that 
appear to be taking place in a number of provinces?
    Ms. Long. Thank you for your question, Senator. Absolutely, 
that one of the benefits of the surge, as well as the combined 
strategic emphasis on the counterinsurgency strategy that 
General Petraeus and Admiral Fallon instituted, is this 
grasroots development, which we now call the Concerned Local 
Citizens. There are over 60,000 of these groups that are now 
operating in Iraq.
    Senator Warner. 60,000 groups?
    Ms. Long. 60,000 individuals. Excuse me.
    Senator Warner. Individuals, I see.
    Ms. Long. Yes, that are either parts of tribes or other 
local groups, neighborhood groups. It started, as the Senator 
correctly pointed out, in al-Anbar under the auspices of the 
Marine Corps and now we are working to spread that to other 
provinces.
    These groups have sworn their cooperation with coalition 
and U.S. forces and are cooperating with us and the Iraqi 
forces against al Qaeda and the foreign fighters in Iraq. In 
addition to that, these groups are working with local 
governments and are strengthening at a grassroots level the 
reconciliation efforts that the Senator referred to.
    From a national level, there are reconciliation efforts 
that are in place, that have not met the key legislative 
benchmarks that Senator Levin was referring to, but have been 
effective in furthering some of the Maliki government's goals. 
For example, while there isn't a formal revenue-sharing plan, 
revenue has been distributed to the various provinces and is 
being pushed out beyond Baghdad.
    On the area of reconciliation as well, Senator, there was 
recently passed a pension reform law that for the first time 
treated former Baathists similarly to----
    Senator Warner. There's been some modest action by the 
Maliki Government, but it is not in any way measurable as it 
relates to the goals set out in January of this year when the 
President announced the surge policy----
    Ms. Long. That's correct, Senator.
    Senator Warner.--that surge to provide a security blanket 
of types to enable the government to fully exercise its 
sovereignty. But I draw your attention again to the question I 
had: were these proliferation of small reconciliations at the 
bottom a means to leverage this government to wake up and begin 
to do more at the top, or has the government tried to frustrate 
in any way the development of these reconciliations at the 
lower level?
    Ms. Long. They are indeed a leverage, Senator.
    Senator Warner. They are leverage?
    Ms. Long. Yes.
    Senator Warner. Has the government tried to encourage it? 
I've read reports it's tried to frustrate it in some ways.
    Ms. Long. Senator, my understanding is Prime Minister 
Maliki has met with representatives of some of the Sunni tribal 
groups. The national government is now going through the 
process of deciding or determining to what level it will 
support various groups. Some of the groups, individuals will be 
integrated into the normal security apparatus and some will 
not. It's very much in flux at this point.
    Senator Warner. So Maliki then has given some tacit 
recognition to this taking place and in some ways, as you say, 
cash is flowing down, although whoever opened the spigot could 
close it overnight, that cash flow. So that's in place.
    Ms. Long. That's correct, Senator.
    Senator Warner. I hope that we can take some modest 
encouragement. But do you see any evidence that would lead you 
to the conclusion that in the near-term future, say the next 90 
days, there's likely to be any actions taken by the Maliki 
Government on the main ones--deBaathification, and the allowing 
of the provinces to have free elections, et cetera?
    Ms. Long. Senator, we're very concerned that the Maliki 
government act. I do understand that the government plans after 
the period of the haj to take on as its first priority effort 
passage of the Iraqi budget, which will have significant impact 
on some of these efforts, and then quickly to turn to 
deBaathification. So I am aware that that is the priority 
effort of the Maliki Government within the next 90 to 120 days, 
sir.
    Senator Warner. If you had to diagnose the problem of why 
the Maliki government hasn't performed, is it rooted in the 
time, historic corruption that exists, the hatred and mistrust 
that exist between the Sunnis and the Shia? Are those still the 
fundamental basic causes that preclude these human beings 
elected by their own people, or parties as the case may be in 
this government, and not by the President of the United States? 
We didn't select these people, but we have to, as we say, deal 
with the cards that were dealt us? Is that still the basic 
reason they can't come together?
    Ms. Long. Senator, I would agree that those are the basic 
reasons. I would allude to what Ambassador Crocker has alluded 
to, which is, even beyond getting these groups together for the 
first time, these are individuals who don't have a lot of 
government experience, do not have a lot of organizational 
experience, and a very, very young government institutional 
apparatus.
    Senator Warner. While our losses of life and limb have gone 
down, we're still sustaining loss of life as a consequence of 
the inaction of the central government. If they were to act 
responsibly and do as prescribed by their constitution and 
charter, I personally think there would be far fewer casualties 
today, both of the coalition forces, of our military, and the 
civilians. Do you agree with that?
    Ms. Long. I agree. Every casualty is one casualty too many, 
sir.
    Senator Warner. Mr. Shinn, as to Turkey, we read this 
morning this report to the effect that there's going to be some 
active military action initiated by the Turkish government 
against the Kurdistan Workers Party (PKK) factions. Could you 
bring us up to date on that and what are the implications on 
our ability to try and keep as much tranquility in that region 
of Iraq as possible?
    Mr. Shinn. Senator, I agree that's a pretty important 
point. I would have to defer to Ms. Long, within whose area 
Turkey and Iraq principally fall.
    Senator Warner. It's on the border of your area.
    Mr. Shinn. Yes, sir.
    Ms. Long. As the Senator is aware, we share the concern 
regarding the turbulence in northern Iraq and we are working 
with the Turkish government and the Iraqi government, as well 
as the regional Kurdish government, all of whom have openly 
declared the PKK to be a terrorist organization, to make sure 
that to the extent possible the conflict and the instability in 
northern Iraq is minimized.
    As this committee is aware, General Petraeus, as well as 
the Vice Chairman, are working personally with Chief of Staff 
Segun in Turkey in order to further diplomatic and other non-
kinetic solutions to this problem, sir.
    Senator Warner. This is my last question here, to Mr. Shinn 
on the question of the Navy and the denial of our ships to make 
those port calls. Having had some experience myself in the Navy 
secretariat, I know full well that those port calls are planned 
well in advance, with full notification and I assume 
recognition in writing of the acceptance of the ship to dock 
and stay there for a period of time.
    What's your best analysis of what happened? It caused great 
hardship to the crew and families of our carrier, so how can 
that be precluded in the future?
    Mr. Shinn. You're right, Senator, it was a big hardship on 
the members, the family members of the crew, as well as the 
crew themselves of the carrier, as well as the other vessels 
who were denied access to Hong Kong in the same period of time.
    We've heard various explanations, both official and 
unofficial, from the Chinese government as to what happened. 
Frankly, we're still baffled. They don't completely add up. 
There have been several explanations, none of which are 
satisfactory, and we look forward to a plausible and full 
official explanation from the Chinese government of what 
happened.
    Senator Warner. More importantly is that you have a 
procedure by which it cannot happen again.
    Mr. Shinn. Absolutely.
    Senator Warner. I pointed out to you the value of the 
Incidents at Sea Agreement which was negotiated many, many 
years ago between the United States and the Soviet Union, that 
is still in effect, and it obviates many of these types of 
situations.
    Mr. Shinn. That was a good model, and in fact I understand 
from Admiral Fallon when he was at Pacific Command that the Sea 
Agreement that you negotiated with the Russians was an 
inspiration for the Military Maritime Consultative Agreement, 
which was designed to help avoid these kind of 
misunderstandings.
    Senator Warner. By the way, I had the privilege of 
discussing both of you with Admiral Fallon and he's very 
favorably impressed with your professional services, both Ms. 
Long and you, Mr. Shinn.
    Thank you, Senator Webb, for your indulgence.
    Senator Webb [presiding]. Thank you, Senator Warner, my 
senior Senator.
    I'd like to thank all of you for your willingness to 
continue to serve. I have 5 years in the Pentagon, 1 as an 
Active Duty marine and on then-Secretary Warner's staff 
actually, my last year in the Marine Corps, and then 4 as a 
defense executive. It's a great place to work, and to get 
motivated every day by the people who wear the uniform.
    I also grew up in the Air Force. I think both of you 
gentlemen know what that means. Anybody who's seen the movie 
``The Great Santini,'' that was the way I grew up. I can still 
remember standing at parade rest in front of my chest of 
drawers on Saturday morning, waiting for the old man to come in 
and inspect my room.
    I have some questions for all of you. If my time runs out, 
I'll come back. I'd like to give you the opportunity to clarify 
this for the record, Mr. Duehring, on these political 
promotions. It's an extremely serious impingement for anyone 
who has spent time around the career military. It was one of 
the central issues in the Tailhook scandal, frankly, when this 
committee was insisting on doing a secondary evaluation of the 
fitness reports of people who had already passed through the 
promotion boards. I spoke strongly about that well before I 
ever thought I would run.
    I would assume you agree that, other than in the form of a 
fitness report of a civilian superior or reporting officer, 
that there should be no political input in the military 
promotion process?
    Mr. Duehring. Senator, there should definitely be no 
political input in the promotion process. There's no difficulty 
with that. My concern was when I got the question, I didn't 
really understand what the article was reporting. So any answer 
that I gave would be sheer conjecture on my part and I thought, 
since I just heard about it, it would be better just to take it 
for the record.
    Senator Webb. But as a guiding principle, I think we should 
all agree that there should be no political input in the 
promotion process other than through the forms of fitness 
reports. Wouldn't you agree with that?
    Mr. Duehring. No political input, that's correct, sir.
    Senator Webb. Can you explain what the functions of the 
Patrick Henry Center for Individual Liberty are?
    Mr. Duehring. It was a conservative organization, one of 
many here in the Washington area, that is headquartered here. 
It was built around its founder, Gary Aldrich, who had been an 
FBI agent and retired, and promoted conservative causes. At the 
time I had just moved back to Washington, DC, and needed to get 
involved in something to keep my mind going until I found out 
what I was really going to be able to do to serve my country.
    Senator Webb. Could you explain the mission statement of 
the 501[c][3]?
    Mr. Duehring. Generic?
    Senator Webb. Yes.
    Mr. Duehring. Yes, sir.
    Senator Webb. What was the mission statement of the 
organization?
    Mr. Duehring. It was called the Patrick Henry Center for 
Individual Liberty. People came to him to talk about if they 
thought that they were being prosecuted or persecuted for what 
they might have said, that he would give advice because of his 
background.
    Senator Webb. Former government officials?
    Mr. Duehring. I don't recall any government officials.
    Senator Webb. Or former Federal employees? Basically former 
Federal employees who believed that they had been improperly 
treated?
    Mr. Duehring. I would say it was like a counseling service. 
So he didn't actually go out and do something on their behalf 
except talk to them directly. It was a very, very small group.
    Senator Webb. Thank you.
    Ms. Long, I'd like to ask you a question just as a follow-
on to the question with respect to Iran and the NIE. What is 
your view of the motivation of Iran in its cooperation with the 
multinational effort that resulted in the formation of the 
Karzai Government in Afghanistan?
    Ms. Long. Senator, the cooperation of Iran in the early 
stages of the Afghan government, I don't have the details on 
that. I do understand that there was some cooperation provided, 
particularly support to or acknowledgment of U.S. military 
activities in order to deconflict and provide safety so that 
none of our actions were misinterpreted.
    Senator Webb. But it did actively participate in a 
multinational effort preceding the comments of the 
administration that marked them as members of the axis of evil. 
Would you have any thoughts on what their motivation would have 
been?
    Ms. Long. No, I would not, Senator Webb. Unfortunately, 
Afghanistan falls in Mr. Shinn's area of responsibility. 
However, I am responsible for the area of Iran and I do not 
have any insights as to Iranian motivations at that time.
    Senator Webb. But this does impact on the question of 
Iran's motivation in taking certain actions. On the one hand, 
you were indicating that in your view that Iran would have 
terminated, let's just say, its alleged nuclear program. But 
let's assume for the conversation that it exists, and that they 
terminated that simply as a result of international pressure. 
But they did step forward in the Afghani situation, preceding 
our labeling them a member of the axis of evil, in a way that 
assisted the formation of the Karzai government.
    That would seem to me to be an indicator at some level that 
they operate from practicality, rather than simply from 
external pressure.
    Ms. Long. Senator, I would agree with you. I think Iran 
from a practical standpoint often does a risk versus gain 
analysis of particularly its standing in the international 
community. At the same time, it cooperated on the formation of 
the Karzai government, however, it was continuing to fund and 
to support Hezbollah and other terrorist activity worldwide.
    Most recently, I believe Karzai has been fairly clear in 
that he finds Iran to be a destabilizing influence in Kabul, as 
well as a new source or at least a newly discovered source of 
support to insurgent activity and Taliban along Afghanistan's 
border. So it's very difficult to gauge the motivations of 
Iran. On the one hand, they are very concerned about their 
international standing; on the other hand, not concerned enough 
to cease their international activities in support of 
terrorism.
    Senator Webb. There were opportunities that this 
administration had that were arguably overlooked that could 
have affected Iran's conduct in a different way. That's the 
point.
    Mr. Shinn, you have long experience in East Asia. I've been 
concerned for many years about Chinese military activities in 
the South China Sea and beyond. Actually, I wrote a piece in 
the New York Times 9 years ago about the Spratlys and the 
Paracels, and here we see it popping up again. There were 
demonstrations in Hanoi that coincided with the military visit 
there.
    I'm wondering about your take on Chinese intentions and 
activities in the Spratlys and the Paracels.
    Mr. Shinn. That's a good question, Senator, and I'm afraid 
I don't have any good answer to the question. I have observed 
and studied Chinese military activities in the South China Sea 
and, even beyond that, their expansion of the People's 
Liberation Army, air force, and navy. The problem we have is 
divining their intent. They have this great capability, but the 
intent remains fairly opaque, whether it's in the South China 
Sea or across the straits in Taiwan.
    That's one of the reasons for, I think, the great care and 
vigilance with which we have to deal with the Chinese military.
    Senator Webb. So you're involved in this area now in your 
present job?
    Mr. Shinn. Yes, sir.
    Senator Webb. Have you seen any indications in the time 
that you've been in this job that the Chinese have increased 
their interest in sovereignty issues in the Paracels and the 
Spratlys?
    Mr. Shinn. We have certainly seen a greater level of 
military activity in the region. There are some ships and some 
aircraft that are outside what I take to be some of their 
historic patterns. Whether they intend to use that to advance 
their sovereignty claims in the South China Sea, I'm not sure. 
But the risk is always there, Senator.
    Senator Webb. The activities have increased, is your 
comment?
    Mr. Shinn. Yes, sir.
    Senator Webb. Thank you.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Thank you all very much for your service to our country and 
your willingness to take on new and additional responsibilities 
and work on behalf of the people of this country in maintaining 
our national security. So thank you very much for being here 
today and for your willingness to accept those responsibilities 
and respond to questions that some of us have regarding those.
    I'd like to direct a couple questions if I might to Mr. 
Gibson. First off, the Air Force Financial Service Center 
opened earlier this year at Ellsworth Air Force Base. The Air 
Force is leading the way when it comes to financial 
transformation to serve our Nation's airmen, and I'm very proud 
that this effort is taking place in my home State.
    My question is, are you familiar with that Air Force 
Financial Service Center and do you support the Air Force 
financial service transformation efforts that are being 
undertaken at Ellsworth?
    Mr. Gibson. Senator, your question addresses a very 
important aspect of financial management and that is continuous 
improvement of the business operations. I am not familiar with 
a lot of the details and analysis that went into that movement 
and consolidation at Ellsworth. However, if I'm confirmed I 
would believe it would be my responsibility to be a champion 
and be a leader in the area of continuing to improve business 
operations in the Air Force and I would make it a priority to 
get up to speed on that and once again support and continue 
that effort.
    Senator Thune. I would welcome the opportunity to host you 
at Ellsworth and show you the work that's underway out there. 
But like I said, we've been very pleased that Ellsworth was 
chosen for that mission. We think it's an important one. We 
think that the transformation that's being undertaken by the 
Air Force is important and might be something that is 
replicated in some of the other Services. But I would hope that 
we could count on you to be able to continue to support that 
important mission and its location at Ellsworth Air Force Base.
    Mr. Gibson. Senator, as I mentioned, it's a priority of 
mine and it would be a pleasure to come out and see that 
operation and what's being done there.
    Senator Thune. You served in previous positions, Office of 
the Secretary of Defense, Under Secretary of Defense, the 
Comptroller, Acting Deputy Under Secretary of Defense for 
Financial Management. Based on that experience, could you 
provide some examples of the types of challenges that the Air 
Force faces in managing its resources because of a lack of 
predictability in funding and the failure to get the necessary 
bridge funding that would come with a global war on terror 
supplemental? What types of issues do you deal with when you 
don't have the kind of reliability and predictable funding 
stream that you need?
    Mr. Gibson. Senator, I am familiar with that concept. 
However, budget execution has not been in my portfolio. I would 
hesitate to comment on some of the ramifications associated 
with execution of the base bill and the supplemental bill and 
the appropriate actions it might have on operations. Again, I 
would hesitate to comment on that.
    Senator Thune. That's probably a very safe answer for you 
right now.
    One other question. Earlier this year, the Air Force 
released its long-range strike white paper, which states that 
the procurement spike for the next generation long-range strike 
platform is expected to begin in 2011. If confirmed, one of 
your responsibilities along with the Director of the Air Force 
budget will be making program and budget decisions and 
preparing the program objective memorandum (POM) in the Future 
Years Defense Program.
    Given this, as the Air Force builds the fiscal years 2010 
through 2015 POM, will you support the proposed 2011 funding 
spike for the next generation long-range strike platform?
    Mr. Gibson. Senator, I'm not familiar with all the details 
relating to that program. If I'm confirmed, Senator, my 
understanding is that my role would be to work with Air Force 
leadership, the programming area, the program budget folks, to 
take the budgetary resources that we have and match them as 
best we can to the priorities of the missions.
    Senator Thune. Period?
    Mr. Gibson. Period.
    Senator Thune. I was waiting for the next part of that 
answer.
    Let me address one other, if I might, issue in which I have 
a great deal of interest, and that's the area of aviation fuel 
expenditures. In fiscal year 2006, the Air Force, according to 
the numbers I have, consumed 2.6 billion gallons of aviation 
fuel at a cost of approximately $5.7 billion. That breaks down 
to approximately 7.1 million gallons per day is used. To make 
matters worse, every time the price for a barrel of oil goes up 
by $10 the Air Force faces another $610 million increase in 
fuel costs.
    These costs need to be reprogrammed from existing accounts 
or accounted for in an appropriations supplemental. To address 
that problem, the Air Force has set a goal of obtaining 50 
percent of its fuel needs from domestic sources by 2016. One of 
those sources is a 50-50 synthetic fuel blend used in the 
successful 2007 flight test of a B-52. It's also slated for 
testing in the engines of the C-17 and the B-1 bomber. If 
confirmed, would you support further funding of research and 
purchase of synthetic fuels for use by the Air Force and will 
you work to program funds for synthetic fuels for the next 
Future Years Defense Program for fiscal years 2010 to 2015?
    Mr. Gibson. Senator, I'm aware of the ongoing efforts to 
improve, maximize what we get from our fuel dollars. This 
includes a number of initiatives, both reaching economies and 
also alternative fuels such as the synfuels. I'm not familiar 
with the specifics with regard to the Air Force budget in this 
matter. However, if confirmed, if this effort truly supports 
maximizing what we do with our budgetary resources and helps 
achieve the mission, then I would fully support it.
    Senator Thune. I appreciate your responses and I know that 
in a setting like this, my questions are somewhat specific and 
your answers probably by necessity have to be somewhat general. 
But once you are confirmed, I would love to sit down with you 
and perhaps drill down a little bit with some of these issues 
that I've raised.
    Mr. Gibson. Senator, if I'm confirmed, it would be my 
pleasure.
    Senator Thune. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin [presiding]. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. In your absence 
we've continued under the leadership of Senator Webb a very 
good series of questions. I'm going to wrap up with one for Mr. 
Duehring.
    First, the issue of annual enrollment fees for the retirees 
eligible for TRICARE is an issue of great concern to the 
Department and Congress. I understand that a DOD task force is 
calling for urgent action to increase TRICARE fees for 
retirees, including a fee for TRICARE For Life. TRICARE is 
something that this committee can take great pride in. We did 
the basic legislation on that some years ago.
    What are your views about the cost of TRICARE and whether a 
means needs to be developed to change the enrollment fee 
structure?
    Mr. Duehring. Senator Warner, as a retiree, I am very 
interested in what happens to TRICARE and the fees, if they 
have to be increased or what have you. Our office right now has 
not been involved in that discussion. I do know there is a 
discussion at the DOD level. It has not come down to the 
Services yet. We're all aware of the fact that the TRICARE 
budget is increasing.
    What I will do, if confirmed, I will take the interests of 
the committee, and of course, as I mentioned before----
    Senator Warner. Would you find the opportunity to reply to 
the record on this very quickly, the best you can?
    Mr. Duehring. Yes, sir.
    [The information referred to follows:]

    The Department of Defense has evaluated the cost of TRICARE and 
changes to the enrollment fee structure as recommended by the Task 
Force on the Future of Military Health Care. The Task Force was 
mandated by the John Warner National Defense Authorization Act for 
Fiscal Year 2007 (section 711 of P.L. 109-364) to assess and recommend 
changes that would help sustain military health care services to 
members of the Armed Forces, retirees, and their families.
    I will review the Task Force findings and evaluate their 
recommendations to help contain an increasing TRICARE budget while 
still sustaining military health care services for airmen, retirees, 
and their families.
    Increasing enrollment fees should not be the only driver of change; 
we must also balance this with improving health care business and 
management practices to ensure we maintain our Air Force readiness 
posture along with taking care of our airmen, retirees, and their 
families.

    Senator Warner. Again, Mr. Shinn--and I also address this 
to Mrs. Long because you have jurisdiction over NATO. NATO is 
the military force now operating in Afghanistan. Afghanistan is 
in Mr. Shinn's AOR. The New York Times reported on December 16 
the following:

          ``Deeply concerned about the prospect of failure in 
        Afghanistan, the Bush administration and NATO have 
        begun three top-to-bottom reviews of the entire 
        mission, from security and counterterrorism to 
        political consolidation and economic development, 
        according to American and alliance officials. The 
        reviews are an acknowledgment of the need for greater 
        coordination in fighting the Taliban and al Qaeda in 
        Afghanistan, halting the rising opium production and 
        trafficking that finances the insurgency, and helping 
        the Kabul government extend its legitimacy and 
        control.''

    The article is very well written and it goes on.
    I think we want in our record this morning your 
perspectives on the current situation and the future situation 
in Afghanistan, and if you would lead off, and then I would 
invite Ms. Long to make a contribution with respect to NATO.
    Mr. Shinn. Thank you, Senator. With regard to the strategic 
planning exercise that was mentioned in the newspaper, I'm 
aware of at least two such reviews: one that Secretary Gates 
discussed last week with the NATO allies in Scotland, where the 
idea was for us to have a joint vision for the 3- to 5-year 
horizon, with appropriate milestones for Afghanistan that 
everybody could sign up to at the Bucharest summit. I would 
defer to Ms. Long in a moment to talk more about that.
    The other review was undertaken again by Admiral Fallon, 
known to you and to me in my previous job; when he took over 
the Central Command (CENTCOM) job, as is his bent, drilled down 
very deeply into the fundamental strategy in Afghanistan, and 
continues to work that with the mission in Kabul, in particular 
how to integrate the economic with the military part of the 
counterinsurgency.
    With regard to the overall situation in Afghanistan, I also 
had a chance to discuss this with Senator Levin when I called 
on him yesterday.
    Senator Warner. We also discussed it when you visited with 
me yesterday.
    Mr. Shinn. Yes.
    Senator Warner. I have a very, very high regard for Admiral 
Fallon. I'm quite interested in what steps he is taking on 
this. Is one of these reports being prepared by CENTCOM?
    Mr. Shinn. By CENTCOM in collaboration with the embassy, 
yes, sir.
    Senator Warner. With the embassy?
    Mr. Shinn. Yes, sir.
    Senator Warner. There are three of them. So that would 
account for one. The other one, is that originated by Secretary 
Gates?
    Mr. Shinn. Yes, the one working with the NATO allies was 
initiated by Secretary Gates. I'm not familiar with what the 
third one might be.
    Senator Warner. We going to come to grapple with the 
question of narcotics, which is a very serious question because 
it's generating so much cash. What cash is beginning to 
infiltrate back to finance the operations of the Taliban?
    Mr. Shinn. That's absolutely right and that's one of the 
more alarming aspects of the conflict in Afghanistan, with no 
easy answers. The export of opium from Afghanistan was in 
excess of 8,000 metric tons last year. It's a big increase from 
the year before. Even though we have, we and our allies and the 
Afghan government, a 5-part strategy to deal with this, the 
results have not been very encouraging.
    Senator Warner. If anything, discouraging, because of the 
increase of production this past season over the previous year.
    Now, Ms. Long, to the NATO aspect of it, because NATO is a 
full partner in the situation. Recently, the Secretary of 
Defense, in I thought very stern terms, talked to NATO about 
their role and what must be done to strengthen our operating 
forces. I presume part of that report and discussion bordered 
on the question of narcotics, which is the banker for the 
Taliban.
    Ms. Long. It did, Senator. The only thing I would add to 
what Dr. Shinn said is to explain that the 3- to 5-year vision 
is exactly what the Senator alluded to. It's a mechanism for 
focusing and enhancing NATO's efforts in Afghanistan, to 
include the narcotics effort. Narcotics and the 
counternarcotics activity of NATO in conjunction with the 
Afghan government was one of the subjects that was raised most 
recently at the meeting in the United Kingdom of contributing 
nations that are participating in the regional command.
    Senator Warner. Bottom line, each of these problems is 
contributing to the loss of American life, and the loss of 
American limb. We have an obligation to do everything we can, 
an obligation to those in uniform and their families back home, 
to get a firmer grip on this situation.
    My last question would be related to Russia, which again is 
in your portfolio, Ms. Long. I wonder how you sleep at night. 
You have all the problems one can possibly imagine.
    Obviously, the relationships have somewhat deteriorated 
here in the last perhaps 18 months, partially because Russia 
now is feeling the benefit of the revenues from its sale of 
petroleum. Its coffers are now somewhat filled as compared to 
several years ago. How do we propose to try and improve those 
relationships? Because we are relatively the two powerful 
nations that border those areas in Central Europe.
    Ms. Long. Thank you, Senator. I share your concern 
regarding our dealing with Russia, and there has been a recent 
shift in Russia's relationship not only with the United States, 
but with the international community. Probably the most obvious 
evidence of that is its recent suspension of the Conventional 
Forces in Europe (CFE) Treaty and most recently not to provide 
the data information that is required under that agreement on 
December 15.
    On the one hand, we remain strict with our principles of 
democracy in dealing with Russia in terms of its development 
and its responsible role as an international player. On the 
other hand, in terms of things like missile defense, we are 
reaching out to Russia in order to garner its support and its 
participation, where we can encourage it to do so, to play a 
constructive role in regional security by either exchanging 
data with it regarding the missile defense issue or even 
inviting it to participate by visiting some of our missile 
defense structures here in the United States.
    So it is a balancing act, Senator. But we know that we need 
to move forward in order to deal with Russia in today's 
context.
    Senator Warner. Is Russia beginning to reinvest and 
refurbish its military to a measurable increase?
    Ms. Long. There are some indications that Russia is 
reinvesting in portions of its military, yes.
    Senator Warner. Which portions are receiving that benefit?
    Ms. Long. I'd rather have that conversation in closed 
session, Senator.
    Senator Warner. All right.
    Ms. Long. I apologize. I'm not sure how much of it is open.
    Senator Warner. Clearly, the figures show that they're 
pumping some of these new revenues back into refurbishing their 
military?
    Ms. Long. Russia has not abandoned development of its 
military, no, Senator.
    Senator Warner. I thank the witnesses. I wish you well. You 
have my support. I do hope, Mr. Chairman, we can act on these 
nominations with the usual dispatch that you use.
    Chairman Levin. Thank you.
    We're just going to pause for one moment. [Pause.]
    Ms. Long, let me pick up on the NATO question that you were 
asked. The Secretary was quoted or reported to have said 
something about toning down U.S. appeals to NATO allies for 
more troops, equipment, and trainers for the NATO-led effort in 
Afghanistan. Is it your understanding that Secretary Gates 
intends to pull back from pressing our allies to do more?
    Ms. Long. Senator, I believe the newspaper article quoted 
the Secretary as saying that he would no longer hammer NATO 
allies. I think that is open to misinterpretation. If 
confirmed, I do believe I will be working with the Secretary to 
continue putting pressure on NATO in order for it to fulfill 
its commitments in Afghanistan. What I believe the Secretary 
was referring to was looking for more creative ways, including 
this visionary statement, in order to continue enhancing NATO's 
efforts in Afghanistan.
    Chairman Levin. You made reference in the answers to your 
pre-hearing questions about the CFE Treaty and indicated that 
if outstanding problems can be solved, the present treaty can 
and should be replaced by the adapted treaty to reflect post-
Cold War realities. Can you just expand on that a bit here?
    Ms. Long. Thank you, Senator. I think one of the criticisms 
of the CFE is, for example, the bloc-to-bloc structure that 
that treaty envisioned or actually is based upon. I believe 
that basis was appropriate at the time that the treaty was 
formed because it dealt with an east-west configuration that 
has changed since the dissolution of the Soviet Union.
    My understanding is that one of the provisions of the 
treaty that may be addressed by the the Adapted CFE Treaty, if 
it is passed by the countries, is to dissolve the bloc-to-bloc 
treatment and deal with the equipment and forces from a 
national perspective. That would be one of the issues, Senator.
    Chairman Levin. Mr. Duehring, the National Defense 
Authorization Act which we just passed authorizes an active Air 
Force end strength of 329,000. Is there any reason why we 
should not expect the President's request for fiscal year 2009 
to include those numbers that you know of? There was a 
reference to a lower number that the Chief of Staff of the Air 
Force made. Do you know what the intent is or what the Air 
Force's request is in that regard? Is there any reason to 
believe it's not going to be the 329,000?
    Mr. Duehring. The last information I had was from before 
the time that that act was passed. So I have a little bit of a 
history of intentions, but what I'd like to do is study that a 
little bit more. We're all concerned about the decreasing 
numbers and the impact it has on our ability to carry out the 
war. I'll be happy to take that.
    Chairman Levin. All right. Let us know anything that you're 
able and willing to tell us about that for the record, would 
you?
    [The information referred to follows:]

    Active Duty end strength is currently programmed to go from 328,600 
in fiscal year 2008 to 316,600 by the end of fiscal year 2009. However, 
the Air Force will submit as a follow on to the President's fiscal year 
2009 budget a report on the Air Force's Total Force end strength 
requirements to include new and emerging missions as directed by the 
fiscal year 2008 House Conference Committee report.

    Chairman Levin. Mr. Duehring, a recent CBS News 
investigation found that the suicide rate among veterans is 
twice that of civilians and it's clear that some military 
personnel returning from Iraq and Afghanistan are struggling 
with those experiences. Do you know what the Air Force is doing 
to assess the mental health situation of our servicemembers and 
to aid that situation of those members who are returning from 
Iraq and Afghanistan? Do you know what efforts are underway 
there?
    Mr. Duehring. Mr. Chairman, I know that the Air Force 
actually started some work in this area around 1997 when it 
created a program to try to stem the rising tide of suicides 
which was occurring even at that time. I was looking at the 
charts that we prepared for this briefing and there's a 
noticeable dropoff. I know that our suicide rates run very, 
very closely to the statistical average for the United States. 
Of course, any suicide is bad. It's part of our ongoing program 
of assessments that we do when people return from overseas, and 
if confirmed, I will make this one of my very highest 
priorities.
    Chairman Levin. Mr. Gibson, given your experience in the 
Office of the Secretary of Defense, under the Comptroller as 
the Deputy Under Secretary of Defense for Management Reform, 
and you also have some previous experience in the Comptroller's 
organization as a financial management official, would you give 
us your assessment as to how the DOD management systems and 
business processes measure up to private sector standards?
    Mr. Gibson. Senator, your comments and your question are 
about a significant issue in the Department with regard to 
financial management. Ultimately, our goal is to generate 
timely, accurate, and reliable information. One aspect of this 
is improving our business processes. But another is modernizing 
our financial systems. This is a significant undertaking and 
through the creation of the Business Transformation Agency, we 
are working this at the enterprise level, with tiered 
accountability.
    It is hard for me to compare the systems at the Department, 
being that the complexity and size--we are the largest 
corporation in the world. But I can tell you that we are 
working this issue through the enterprise transition plan, and 
if I am confirmed, it would be a top priority of mine to 
support the enterprise transition plan and its compliance in 
the Air Force.
    Chairman Levin. Mr. Gibson, every couple years the 
Government Accountability Office (GAO) puts together a high-
risk list of management problems in the Federal Government. The 
DOD routinely accounts for more than half of the items on the 
GAO high-risk list. Are you familiar with that GAO high-risk 
list?
    Mr. Gibson. Yes, sir, I am.
    Chairman Levin. Are you going to be able to make progress 
in that area? How confident are you, given the history of 
either failed efforts or lack of efforts, in this area? How 
confident are you that the Air Force will look different in 
terms of management a year or 2 years or 3 years from now than 
it does, that it'll look different?
    Mr. Gibson. Senator, two key areas that relate to financial 
management associated with the GAO high-risk are performance 
and governance of our business systems and financial management 
weaknesses related to providing timely, accurate, and reliable 
data. If confirmed, I intend to make progress towards an 
unqualified audit opinion a high priority. Improving financial 
processes and modernizing systems via the financial improvement 
and audit readiness plan and the enterprise transition plan 
will be a significant aspect.
    Additionally, if confirmed, providing governance and 
oversight of business systems will be a priority and GAO will 
be a valuable third party partner, and I will continue to work 
with them on these issues.
    Chairman Levin. Thank you.
    Mr. Gibson, Mr. Duehring, Mr. Shinn, and Ms. Long, thank 
you all for your testimony, for your willingness to serve. We 
again thank your families for their support.
    We will stand adjourned.
    [Whereupon, at 11:24 a.m., the committee adjourned.]

    [Prepared questions submitted to Mary Beth Long by Chairman 
Levin prior to the hearing with answers supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. No. I do not see any need to modify the Goldwater-Nichols 
Act at this time.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I do not see any need to modify the Goldwater-Nichols Act 
at this time.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of Defense for International Security Affairs 
(ISA)?
    Answer. The Assistant Secretary of Defense for International 
Security Affairs is the principal advisor to the Under Secretary of 
Defense for Policy and the Secretary of Defense on international 
security strategy and policy issues of the Department of Defense (DOD) 
interest that relate to the nations and international organizations of 
Europe (including the North Atlantic Treaty Organization (NATO)), the 
Middle East, and Africa, their governments and defense establishments, 
and for oversight of security cooperation programs and foreign military 
sales programs in these regions.
    Question. Assuming you are confirmed, what duties and functions do 
you anticipate that Secretary Gates would prescribe for you?
    Answer. If confirmed, I believe that the Secretary would ask me to 
manage the day-to-day, multilateral, regional, and bilateral defense 
relations with the governments in Europe, the Middle East, and Africa. 
He also would ask me to develop, coordinate, and oversee the 
implementation of policy related to NATO and other institutions with a 
security dimension. He would likely ask that I represent the Under 
Secretary of Defense for Policy and the Secretary of Defense in 
interagency policy deliberations and international negotiations dealing 
with these assigned areas of responsibility, when appropriate. Finally, 
I would likely be asked to monitor and provide policy recommendations 
related to the conduct of U.S. military operations in the countries and 
regions under the areas of my responsibility, as well as on the 
participation of those countries and organizations in security or 
defense operations elsewhere that have an impact on U.S. defense 
considerations.
    Question. What impact has the reorganization of the Office of the 
Under Secretary of Defense for Policy had on the functions and duties 
of the Assistant Secretary of Defense for International Security 
Affairs?
    Answer. Prior to the reorganization of the Office of the Under 
Secretary of Defense for Policy, the Assistant Secretary of Defense for 
ISA had responsibility for bilateral and regional policy issues 
globally, except for in Europe and Eurasia. ISA also had responsibility 
for the conduct of Prisoners of War/Missing in Action (POW/MIA) 
affairs, coalition management, activities related to support to public 
diplomacy, and oversight of the Defense Security Cooperation Agency.
    The reorganization of policy aligned the policy regional offices 
more closely to the combatant commands. The Assistant Secretary of 
Defense for ISA retained responsibility for Africa and the Middle East. 
European, Eurasian, and NATO matters were added to the ISA portfolio. 
The Office of Asian Affairs, including matters pertaining to 
Afghanistan (except for NATO operations in Afghanistan), now falls 
under the new Office of the Assistant Secretary for Asian and Pacific 
Security Affairs. The Western Hemisphere Office also moved; it now 
falls under the responsibility of the Assistant Secretary of Defense 
for Homeland Defense.
    The new policy organization gathers functional responsibilities 
under the Assistant Secretary of Defense for Special Operations and 
Low-Intensity Conflict (SO/LIC) and Interdependent Capabilities and the 
Office of the Assistant Secretary of Defense for Global Security 
Affairs. Coalition management issues, POW/MIA affairs, and oversight of 
the Defense Security Cooperation Agency are now housed under the Office 
of the Assistant Secretary for Global Security Affairs. Personnel 
working public diplomacy issues now report to the Support for Public 
Diplomacy Directorate.
    Question. What challenges has the reorganization created for 
carrying out those functions and duties, and what steps would you take 
to address those challenges?
    Answer. The reorganization of policy created a more effectively 
balanced organization with a greater ability to address post-Cold War, 
crosscutting issues. It also made the policy organization more flexible 
and adaptive to evolving policy challenges and leadership priorities. 
This resulted in offices with a broader expertise in the different 
facets of a single issue. This is a benefit rather than a challenge, 
but it does require close coordination across the portfolios of the 
various Assistant Secretaries. The Office of the Under Secretary must 
continue to ensure that it remains true to the spirit of the 
reorganization--to remain flexible and adaptive as the security 
challenges we face constantly change, and to adjust priorities and 
allocation of resources accordingly.
    Question. How do you see the civilian role, as opposed to the 
military role, in the formulation of strategy and contingency planning?
    Answer. From the briefings I have received, I understand that the 
Under Secretary of Defense for Policy's office initiates the biennial 
contingency planning cycle on behalf of the Secretary through the 
Contingency Planning Guidance. Following the guidance in this document, 
which the President approves, combatant commanders develop operation 
plans for prescribed scenarios. As they are being developed, the 
Secretary of Defense periodically reviews the most important of these 
plans with the responsible combatant commander. The Under Secretary of 
Defense for Policy follows the development of this body of plans and 
assists the Secretary in a formal review of the plans, which are then 
submitted for his approval.
    Question. Will the responsibilities of the Assistant Secretary for 
ISA include responsibility for dealing with NATO nuclear matters?
    Answer. The Assistant Secretary of Defense for ISA serves as the 
Chair of the NATO High Level Group, the advisory body to NATO's Nuclear 
Planning Group. The Assistant Secretary of Defense for ISA performs 
this duty in very close coordination with the Assistant Secretary for 
SO/LIC, who has responsibility for strategic capabilities, including 
nuclear forces.
    Question. Will the responsibilities of the Assistant Secretary for 
ISA include any responsibility for formulating strategic nuclear 
policy?
    Answer. No. These duties belong to the Assistant Secretary of 
Defense for SO/LIC and Interdependent Capabilities.

                             QUALIFICATIONS

    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I believe I am qualified for this position by a combination 
of the over 15 years of government experience in the intelligence and 
policy arenas, my experience dealing with international issues and 
foreign officials, and by the skills I have developed as an attorney 
and manager.
    I have served in the DOD since 2004 and have held the position as 
the Principal Deputy Assistant Secretary of Defense for ISA since 
August 2005. In this capacity, I have been called upon to perform many 
of the duties and roles of the Assistant Secretary of Defense, 
particularly since the departure of Assistant Secretary Peter Rodman in 
March 2007. In the 27 months as the Principal Deputy in ISA, I have 
become steeped in the issues that the Assistant Secretary must confront 
and have represented ISA within the interagency and with senior foreign 
defense counterparts. In addition, I have testified before, and have 
regular interaction with, Congress on ISA issues. I also have 
established effective working relationships with my DOD counterparts, 
as well as with my interagency and foreign colleagues.
    Prior to my current assignment in the Department, I served as the 
Deputy Assistant Secretary of Defense for Counternarcotics for over a 
year, beginning that appointment in May 2004. As the Deputy Assistant 
Secretary of Defense for Counternarcotics, I worked extensively with 
ISA and related Department, interagency, and foreign colleagues, as 
well as with Congress. Much of my work in that office focused on 
building capacity in Afghanistan and transnational threats.
    Before coming to the DOD, I served with the Central Intelligence 
Agency from 1986-1999. While there, I developed experience working with 
many issues related to the ISA portfolio and gained significant 
experience dealing with the interagency and foreign government 
officials. In particular, I worked closely with the Departments of 
State and Defense on terrorism, nuclear issues, and other transnational 
threats, even serving as the Embassy ``Principal (Anti-) Money 
Laundering Officer'' and representative to multilateral organizations, 
including those on conventional weapons and weapons transfer issues.
    From 1999 to May 2004, I practiced law with Williams & Connolly 
LLP. In that capacity, I developed many of the skills necessary to 
successful performance as an Assistant Secretary, including critical 
thinking, creative problem-solving, and the conduct of complex 
negotiations.

                             RELATIONSHIPS

    Question. Please describe your understanding of the relationship of 
the Assistant Secretary of Defense for ISA to the following officials:

          The Secretary of Defense;
          The Deputy Secretary of Defense;
          The Under Secretary of Defense for Policy;
          The Under Secretary of Defense for Intelligence;
          The Chairman of the Joint Chiefs of Staff;
          The Secretaries of the Military Departments;
          The Chiefs of Staff of the Services;
          The combatant commanders, in particular Central Command, 
        European Command (EUCOM), and Africa Command (AFRICOM);
          The Principal Deputy Under Secretary of Defense for Policy;
          The Assistant Secretary of Defense for Asian and Pacific 
        Security Affairs;
          The Assistant Secretary of Defense for Global Security 
        Affairs; and
          The Assistant Secretary of Defense for SO/LIC and 
        Interdependent Capabilities.

    Answer. If confirmed, I will report to the Secretary of Defense and 
Deputy Secretary of Defense through the Under Secretary of Defense for 
Policy. I will work closely with the Principal Deputy Under Secretary 
of Defense for Policy. I also expect to develop and maintain close 
working relationships with the Under Secretaries and Assistant 
Secretaries across the Department, the General Counsel of DOD, the 
Secretaries of the Military Departments, the Chairman and Vice Chairman 
of the Joint Chiefs of Staff, and with combatant commanders.
    The position requires close coordination with the other Assistant 
Secretaries of Defense within OSD Policy, as appropriate. Examples of 
this coordination would include working with the Office of the 
Assistant Secretary of Defense for Asia and Pacific Security Affairs on 
the role of NATO in Afghanistan; the Assistant Secretary of Defense for 
SO/LIC and Interdependent Capabilities on counterterrorism, 
particularly in Iraq, and on nuclear matters; the Assistant Secretary 
of Defense for Homeland Defense and Americas Security Affairs on 
humanitarian assistance and disaster relief efforts in my area of 
responsibility; and the Office of the Assistant Secretary of Defense 
for Global Security Affairs on Counternarcotics, and coalition affairs, 
proliferation, and security assistance matters.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the next Assistant Secretary of Defense for ISA? Assuming you 
are confirmed, what plans do you have for addressing these challenges?
    Answer. A number of the major challenges that the next Assistant 
Secretary of Defense for ISA will confront are related to how best to 
support the U.S. warfighter deployed in the regions under the 
jurisdiction of the Office of the Assistant Secretary for ISA. In the 
areas under ISA responsibility, there are currently significant numbers 
of U.S. forces deployed--many of them in combat or combat support 
roles--including over 150,000 in Iraq. In the next year, there will be 
many political and other transitions that significantly impact these 
forces as governments of coalition partners face elections and mandate 
renewals, as the Iraqi and Afghan governments mature, and as U.S. 
forces adjust in number and mandate. Should I be confirmed, I will 
commit myself to working in close partnership with Congress, the 
military departments and other agencies, our coalition partners, and 
the Iraqi and Afghan Governments, to properly support our deployed 
warfighters.

                                  IRAQ

    Question. The President has said that the purpose of the surge over 
the last year was to give Iraqi politicians the breathing space to 
effect reconciliation.
    Would you agree that reconciliation has not been achieved and, 
consequently, the surge has not met its stated purpose?
    Answer. The President's New Way Forward, announced in January 2007, 
increased the number of U.S. troops in Iraq in order to facilitate 
political progress and to give Iraq the time and assistance needed to 
build the capabilities of the Iraqi security forces and government 
capacity.
    As General Petraeus has indicated, the increase in troop strength 
combined with a tactical focus on counterinsurgency have been 
successful in bringing violence down to levels comparable to the spring 
of 2005--thus allowing political progress to take place, particularly 
at a local level. While this political progress has taken place, it has 
not been in the way we originally expected. Bottom-up reconciliation 
has occurred at the local and provincial level with Iraqi citizens 
rejecting al Qaeda in Iraq and forming Concerned Local Citizen groups. 
Provincial governments are also functioning more effectively. At the 
national level, political developments have been less encouraging. 
National reconciliation is still a work in progress, but economic 
development is occurring and efforts to advance significant 
legislation, such as the deBaathification legislation, are underway.
    A significant challenge for the next months will be supporting, in 
consultation with Congress, the Government of Iraq's ability to 
capitalize on local gains, to pass key legislation, and to promote 
national reconciliation, including by capitalizing on the momentum of 
bottom-up progress to meet enhanced top-down efforts.
    Question. What leverage do you believe the United States has to 
induce Iraqi politicians to effect reconciliation?
    Answer. Surely our presence in Iraq, our active involvement with 
the Iraqi Government leaders, our relationships with Iraq's neighbors, 
and our engagement in support of Iraq in multinational force provide us 
with significant leverage. As Ambassador Crocker stated, a crucial 
question is whether Iraq's collective national leadership is ready to 
prioritize the interests of the Government of Iraq over sectarian and 
community interests. Ambassador Crocker believes Iraq's leaders have 
the will to tackle these problems.
    An important aspect of U.S. leverage is our ability to serve as a 
facilitator for enabling the Iraqis to make the hard decisions 
necessary in order to determine their own destiny. We appeal to Iraqi 
national interest and observe that Iraq will prosper if the interests 
of all elements of society are accommodated.
    Finally, we have significant leverage through our relationships 
with allies neighboring Iraq. For example, the Neighbors Ministerial 
meetings have been helpful in addressing issues such as border 
security, refugees, and energy, and we have worked hard to support Iraq 
as it leads this process.
    Question. How quickly do you believe U.S. troop levels could and 
should be reduced in Iraq? On what do you base this?
    Answer. In close and continuing dialogue with Congress, I believe 
the assessment should be based on the recommendation of the commander 
on the ground. When General Petraeus testified before Congress in 
September, he stated that he believed we would be able to reduce our 
forces to the pre-surge level of brigade combat teams by the summer of 
2008 without jeopardizing hard-fought security gains. Thus far, the 
trend looks favorable.
    This coming spring, General Petraeus and Ambassador Crocker will 
return to report to Congress and the American people on the status of 
developments in Iraq. At that time, he will address how quickly he 
believes U.S. troop levels can be reduced. It is our hope that he will 
report that the reductions currently contemplated can be executed and 
will provide his advice on further reductions.
    Question. What level of U.S. force presence do you foresee in Iraq 
over the long term? What missions do you see those forces performing? 
How long do you believe that period will be?
    Answer. We are working closely with our Iraqi partners to determine 
what our presence will look like beyond the summer of 2008; however, as 
General Petraeus stated in his testimony last September, ``our 
experience in Iraq has repeatedly shown that projecting too far into 
the future is not just difficult, it can be misleading and even 
hazardous.'' Determining the final nature and level of that presence 
depends upon what the Iraqis desire as well as what we believe we 
should provide, and should be determined in close coordination with 
Congress.
    Most likely, the relationship will build upon the Declaration of 
Principles signed by President Bush and Prime Minister Maliki on 
November 26. This declaration commits the Governments of the United 
States and Iraq to agree to a long-term security agreement to regulate 
our security relationship by July 31, 2008.
    As the President stated, the United States envisions the creation 
of an enduring relationship that is in the best interest of both the 
United States and Iraq, which would include security cooperation to 
help provide for Iraqi stability and to prosecute the war on terror. 
Troop levels would be governed by the conditions on the ground. 
Specifically, it is envisioned that U.S. troops might be required to 
deter external aggression, support Iraq in its effort to combat 
terrorist groups, and to train and equip the Iraqi security forces.
    The United States does not seek permanent bases in Iraq. In the 
next months, it will be engaging the Iraqis in discussion on the nature 
of our continued presence, including the protection of our forces (to 
include Status of Forces-like protections) and the support required for 
our long-term relationship with them. It is likely that we may seek 
agreements with the Iraqis to provide access to facilities to support 
our activities.

                          IRAQ LESSONS LEARNED

    Question. What do you believe to be the major lessons learned from 
the Iraq invasion and the ongoing effort to stabilize the country?
    Answer. As Secretary Gates recently said to an audience at Kansas 
State University, ``One of the most important lessons from our 
experience in Iraq, Afghanista`n, and elsewhere has been the decisive 
role reconstruction, development, and governance plays in any 
meaningful, long-term success.'' Essential ingredients for 
stabilization include economic development, institution building, 
internal reconciliation, governance, basic services, the training and 
equipping the indigenous military and police forces, and strategic 
communications.
    Our experience in Iraq has also taught us the importance of 
deploying civilian expertise. Provincial Reconstruction Teams are 
designed to employ civilians experienced in agriculture, governance, 
and other aspects of development--to work with and alongside the 
military to improve the lives of the local population, a key tenet of 
any counterinsurgency effort. Where they are on the ground--even in 
small numbers--we see tangible and often dramatic improvements.
    Another lesson deserving of highlighting is the importance of 
enabling and empowering our partners to defend and govern themselves. 
The standing up and mentoring of indigenous army and police--once the 
province of Special Forces--is now a key mission for the military as a 
whole and a key to our success in Iraq.

                             IRAQ REFUGEES

    Question. The United Nations estimates that over 4 million Iraqis 
have been displaced by violence, and over 2.3 million have vacated 
their homes for safer areas within Iraq. Further, 1.5 million are now 
living in Syria, and over 1 million refugees inhabit Jordan, Iran, 
Egypt, Lebanon, Yemen, and Turkey. Most of these Iraqis are determined 
to be resettled to North America or Europe, and few consider return to 
Iraq a viable option.
    What do you believe should be the role of the DOD with regard to 
managing the return of refugees to Iraq?
    Answer. DOD's role is to support the State Department and other 
U.S. agencies that work with international organizations responsible 
for assisting refugees, or internally displaced persons, and promoting 
their safe return.
    Another key role is to help the government of Iraq to provide its 
citizens with a secure environment in which to resume their lives.

                        MIDDLE EAST ARMS PACKAGE

    Question. The administration's recently proposed $30 billion arms 
package was presented to Congress as a critical means by which U.S. 
allies in the Middle East could deter Iranian influence in the region.
    In light of the recent National Intelligence Estimate (NIE) on 
Iran, do you believe the scope of this arms package should or should 
not be reconsidered?
    Answer. As Secretary Gates said recently in Manama (on December 8, 
2007), the Gulf Security Dialogue (GSD) is a joint State Department-DOD 
initiative oriented toward developing a strategic framework to enhance 
and strengthen regional security. The proposed sales associated with 
the GSD should help maintain the balance of power in the region by 
assisting countries to counter conventional as well as unconventional, 
asymmetric, and terrorist threats, including threats posed by ballistic 
missiles. The weapons systems associated with the GSD are primarily 
defensive in nature and are designed to help our friends deter and 
defend against such threats, including those from Iran.

                                  IRAN

    Question. Do you support a diplomatic approach for engaging 
directly with Iran regarding stability and security in Iraq?
    Answer. Yes. The Department supports the effort led by Ambassador 
Crocker in dialogue with the Iranians regarding all of our concerns 
related to Iraqi stability and security. We are seeking to convince 
Iran that it is to its benefit that Iraq becomes a neighbor that is 
stable, secure, and prosperous.
    Question. From a policy perspective, what impact does the recent 
NIE on Iran have on the Department's thinking about Iran as a regional 
threat and a threat to the United States?
    Answer. As the President has stated, our thinking on Iran has not 
changed. Further, as Secretary Gates emphasized in Manama, the report 
expresses with greater confidence than ever that Iran did have a 
nuclear weapons program--developed secretly, kept hidden for years, and 
in violation of its international obligations. As the Secretary said in 
his Manama speech, the Iranians do have the mechanisms still in place 
to restart their program at any time. Importantly, the estimate did not 
identify impediments to Iran restarting the program.

                                 LIBYA

    Question. Over the past few years, the United States' relationship 
with Libya has changed dramatically.
    From a policy perspective, in your assessment, what should be the 
nature of our military-to-military cooperation with Libya?
    Answer. Any military-to-military relationship with Libya needs to 
be developed and conducted within the overall context of a coordinated 
U.S. Government policy framework and in close consultation with 
Congress. Such a relationship should be supportive of Libya's 
continuing transformation to a responsible form of government and 
sustained normalization of its relationship with the international 
community.
    Question. How should DOD engage with other countries removed from 
the State Sponsors of Terrorism List?
    Answer. DOD should proceed deliberately, on a case-by-case basis, 
and in close consultation with Congress. It would be important to 
develop military-to-military relations and conduct DOD activities 
within a well-coordinated U.S. Government policy framework and in a way 
that reinforces respect for human rights and international law.

                                 SYRIA

    Question. Do you believe it is in the United States' interest to 
engage Syria in a direct dialogue regarding stability and security in 
Iraq?
    Answer. There are opportunities for Syria to engage in constructive 
dialogue on this issue, and I welcome Syria to take advantage of these 
opportunities--through our Embassy in Damascus, opportunities such as 
the recent Annapolis dialogue, through multinational fora to include 
the U.N., or indirectly, perhaps through the Iraqis or others. But for 
engagement to be productive, Syria must stop its destabilizing behavior 
in the region, including permitting terrorist networks to move suicide 
bombs into Iraq, harboring former Iraqi Baathist regime leaders and 
regional terrorist groups such as the Popular Front for the Liberation 
of Palestine-Governing Command, enabling the flow of weapons to 
Hizballah in Lebanon, and working against Lebanon's democratic 
institutions.

                       NATO FORCES IN AFGHANISTAN

    Question. General John Craddock, Supreme Allied Commander Europe, 
has said that the NATO-led International Security Assistance Force 
(ISAF) in Afghanistan is short on maneuver battalions; intelligence, 
surveillance and reconnaissance; helicopters; lift; and operational 
mentoring and liaison teams (OMLTs) for training the Afghanistan 
National Security Forces (ANSF).
    What do you believe can and should be done to persuade NATO members 
to provide the additional troops and equipment to meet the Afghanistan 
mission requirements?
    Answer. We should continue to engage NATO at all levels and at all 
opportunities. We also should continue to engage NATO members 
bilaterally to encourage their support in filling NATO shortfalls. In 
addition, Secretary Gates and others should continue to engage NATO 
members and others in meetings like the U.K.-hosted meeting of the 
eight Allied Defense Ministers contributing forces and capabilities to 
ISAF Regional Command-South held earlier this month. As Secretary Gates 
mentioned recently before Congress, our goal is for allies to agree to 
a strategic concept that outlines where we want to be in 3 to 5 years 
in Afghanistan, where we hope the Afghan Government will be, the ways 
in which we intend to get there, and ways in which we can measure 
progress. It is our belief that such a strategy will help increase 
support among allied legislatures and electorates for the Afghan 
mission and therefore assist in generating the force, resources, and 
flexibility required for ISAF to succeed.
    Question. Should NATO put more emphasis on training the ANSF to 
take on a greater role in providing security throughout Afghanistan, 
including by providing more OMLTs? What do you believe are the benefits 
and risks of such an approach?
    Answer. Yes; NATO should put more emphasis on training the ANSF, 
particularly by providing more, and more capable, OMLTs. Although NATO 
is not in a position to take over the ANSF training mission, allies can 
contribute significantly by overcoming the existing and projected 
shortfall in the number and capabilities of OMLTs.
    Question. What do you believe should be done to induce NATO members 
to remove national restrictions on the use of their troops in 
Afghanistan?
    Answer. As indicated above, we will engage at all opportunities to 
stress the need for allies to lift national caveats that hamper 
employment of their forces by the ISAF commander. Additionally, by 
developing and implementing a strategic concept with benchmarks and 
agreed-upon goals, we may increase support among legislatures and 
electorates so allied governments are willing to lift national caveats 
on how their forces are used.

                       MISSILE DEFENSE IN EUROPE

    Question. The United States has proposed deploying a long-range 
missile defense system in Europe that is intended to provide protection 
for the United States and most, but not all, of NATO Europe against 
ballistic missiles. Since this proposed system would not cover all of 
NATO Europe, it has caused concern within NATO because of the critical 
principle of the indivisibility of security of all of NATO's nations.
    Do you support the principle of the indivisibility of security of 
all NATO nations and, if confirmed, would you work to ensure that any 
missile defense system (or system-of-systems) to protect NATO Europe is 
consistent with this critical principle?
    Answer. Yes. If confirmed, I will reinforce the message conveyed by 
the Under Secretary of Defense and others before the North Atlantic 
Council, the NATO-Russia Council, partner nations, and others to assure 
them that we will work to ensure that any missile defense system to 
protect NATO is consistent with the important principle of 
indivisibility of alliance security.
    Question. The United States is proposing to pay for the deployment 
of a missile defense system to provide protection for the United States 
and most of NATO Europe, but is not proposing to pay for missile 
defense protection of the rest of NATO Europe, nor to seek NATO funding 
for the proposed deployment.
    What is your view on how the costs of missile defense of Europe 
should be paid, and what responsibility the various NATO nations should 
have in paying for such defense?
    Answer. In Policy, the Assistant Secretary of Defense for SO/LIC 
and Interdependent Capabilities has primary responsibility for much of 
the deployment and functional aspects of the missile defense system we 
propose. That said, the U.S. elements we are proposing to field in 
Europe would represent a substantial U.S. contribution to the defense 
of NATO territory. It would be premature to discuss possible funding 
arrangements for any defenses in addition to those the United States is 
proposing. I note, however, that NATO is already funding the Active 
Layered Theater Ballistic Missile Defense program to defend deployed 
NATO forces. It is possible that this existing program could be 
expanded so that, in concert with short-range missile defenses being 
developed and acquired by several NATO allies, these elements might 
provide an integrated defense for those allies not covered by the U.S. 
system.
    Question. Do you believe the United States should be willing to pay 
for missile defense protection of the portions of NATO Europe not 
covered by the proposed European deployment, or that other NATO nations 
should be willing to pay for portions of the proposed deployment?
    Answer. My previous answer applies equally well to this question. 
The proposed U.S. system would represent a substantial U.S. 
contribution to the defense of allied territory. Since the architecture 
of the complementary short- to medium-range system has not been 
determined, it is premature to discuss possible funding arrangements. 
However, the active Layered Theater Ballistic Missile Defense NATO is 
already acquiring could be used as the command and control backbone for 
missile defenses being developed and acquired by several NATO allies 
that could be employed to cover the remainder of NATO territory. If 
confirmed, I will work with Congress to ensure appropriate transparency 
and coordination as we move forward on this effort.
    Question. The Commander of EUCOM is the combatant commander 
responsible for the EUCOM Area of Responsibility (AOR), including 
defense against ballistic missile attack. It is unclear what role EUCOM 
will play in missile defense in Europe, since the long-range system 
proposed for deployment in Europe is expected to be controlled by U.S. 
Northern Command from the United States.
    What role do you believe would be appropriate for EUCOM in missile 
defense of its AOR, and what role do you believe EUCOM should have in 
coordinating and operating missile defenses with NATO for defense of 
Europe?
    Answer. In Policy, the Assistant Secretary of Defense for SO/LIC 
and Interdependent Capabilities is the lead for the technical and 
implementation considerations of the proposed deployment. That said, 
development of the command and control arrangements for missile 
defenses in Europe, which will ultimately include both short- and long-
range defenses, is undoubtedly a complex matter. If confirmed, as we 
develop the appropriate command and control and other arrangements, I 
will consult closely with allies, the relevant combatant commanders, 
and Congress on this issue.

                                 KOSOVO

    Question. Nearly 16,000 NATO troops currently participate in the 
Kosovo Force (KFOR) providing security and stabilization assistance.
    What changes, if any, do you anticipate in the role or requirements 
of KFOR, and for U.S. forces in particular, after the ``troika''--the 
European Union, Russia, and the United States--report to U.N. Secretary 
General Ban Ki-moon later this month regarding Kosovo's future status?
    Answer. If confirmed, I will endeavor to support the Department's 
position that, at least in the short-term, KFOR's role should remain 
the same--to establish and maintain a secure environment in Kosovo, 
providing assistance to the U.N. Mission in Kosovo and monitoring, 
verifying, and when necessary, enforcing compliance with the conditions 
related to the cessation of hostilities in 1999. I do not foresee KFOR 
taking on additional tasks normally performed by police forces or 
customs officials.
    Now that the troika has reported to U.N. Secretary General Ban that 
the talks were not successful, the next step is for the International 
Community to decide whether the comprehensive settlement package put 
forward by U.N. Special Representative Ahtisaari should serve as a 
basis for a new political framework in Kosovo. If that decision is 
made, I would expect KFOR to continue its current mission through a 
transition period to a new supervisory regime.

                             FUTURE OF NATO

    Question. What are the greatest opportunities and challenges that 
you foresee for NATO over the next 5 years?
    Answer. NATO has the opportunity to complete its transformation 
from a static military alliance, focused on territorial defense, to an 
alliance that can deliver security wherever allies' common security 
interests are threatened around the globe. As a part of this, NATO has 
the opportunity to professionalize, transform, and develop the forces 
of its new members. NATO also has the opportunity to enhance 
interoperability and NATO's overall capabilities--through initiatives 
such as enhancing alliance strategic airlift, improving Alliance 
Special Operations Forces capabilities, and adapting the NATO Command 
Structure.
    The primary and continuing challenge is to get allies to devote the 
resources needed to continue transforming their military forces to 
succeed in expeditionary operations such as Afghanistan. In that 
operation, generating the needed forces and capabilities has been 
difficult due to budget shortfalls and a shortage of capable and 
interoperable expeditionary forces.
    Question. Do you support further enlargement of NATO within the 
next 5 years?
    Answer. I believe that NATO's door should be open to new members as 
long as they meet NATO's performance-based standards. It is my belief 
that enlargement will promote a Europe free, whole, and at peace, and I 
support NATO's efforts to prepare aspirants for the responsibilities 
and obligations of membership.
    Question. What more can the United States do to encourage NATO 
member nations to spend more on defense, transform their militaries, 
acquire advanced capabilities, and enhance their interoperability with 
the United States and other NATO member nations?
    Answer. The United States can help by demonstrating its political 
commitment to the alliance, working through NATO to address today's 
complex global security challenges, and by making it clear to allies 
that we expect them to bear an equitable share of the burden of 
alliance security.
    The United States must also lead by example, continuing to field 
expeditionary and state-of-the-art forces and capabilities, and 
employing them in a NATO context, so allied nations can see first-hand 
the benefits of military transformation and the requirements for allied 
interoperability.

                  EUROPEAN SECURITY AND DEFENSE POLICY

    Question. The European Union's (EU) European Security and Defense 
Policy (ESDP) reflects the EU's intention to create a capability to 
conduct military operations in response to international crises in 
cases where ``NATO as a whole is not engaged.'' Concerns have been 
raised that the ESDP could compete with, rather than complement, the 
NATO alliance.
    Do you believe that the United States and its European allies have 
taken sufficient steps to ensure that ESDP is implemented in a way that 
complements and strengthens NATO?
    Answer. The administration supports ESDP on the understanding it 
would increase our allies' and partners' military capabilities, would 
conduct missions where NATO was not engaged, and would do so in a 
manner cooperative with NATO. The United States and most allies have 
worked hard to strengthen NATO-EU cooperation. Much has been 
accomplished, in policy consultations and on real-world missions like 
in Bosnia. Still, we expect continuing U.S. and allied efforts to 
maintain and bolster this cooperation. If confirmed, I will work with 
allies in consultation with Congress to ensure that the ESDP is 
implemented in a manner that ensures it complements, and does not 
duplicate or detract from, NATO.

                           ENGAGEMENT POLICY

    Question. One of the central pillars of our recent national 
security strategy has been military engagement as a means of building 
relationships around the world. Military-to-military contacts, Joint 
Combined Exchange Training exercises, combatant commander exercises, 
and humanitarian de-mining operations, have been used to achieve this 
goal.
    Do you believe that these activities contribute positively to U.S. 
national security?
    Answer. Yes. The challenges we face today--defeating terrorist 
networks, defending the Homelands of ourselves and our allies, shaping 
the choices of countries at strategic crossroads, and preventing 
hostile states from acquiring or using weapons of mass destruction--
cannot be accomplished by one country alone, no matter how powerful. 
Military engagement helps build the capacity of friendly and allied 
militaries, enabling them to contribute to our mutual security, 
including to the fight against terrorism. These activities also 
facilitate international cooperation and interoperability.
    Question. If confirmed, would you support continued engagement 
activities of the U.S. military?
    Answer. Yes, for the reasons noted above.
    Question. What improvements, if any, would you suggest to the 
interagency process for implementing these authorities?
    Answer. DOD works closely with the State Department to plan and 
implement security cooperation globally. As the Secretary of Defense 
said recently in his Landon Lecture series remarks at Kansas State 
University, new threats require our government to operate differently--
to act with unity, agility, and creativity. As the Secretary stated, 
these new threats will require that we devote considerably more 
resources to America's non-military instruments of power. I believe 
these instruments of power include regular military engagement.

                                 RUSSIA

    Question. U.S.-Russian relations have experienced increased 
tensions over the past several months, including as a result of Russian 
reactions to the U.S. proposal for a missile defense site in Europe.
    What is your vision for U.S.-Russia relations in promoting security 
in Europe and globally?
    Answer. If confirmed, I will seek constructive cooperation with 
Russia to promote European and global security--of course, while 
remaining true to our principles. We have a robust bilateral annual 
work plan with the Russians, consisting of over 100 planned events that 
are mainly focused on exchanges and developing interoperability. These 
include numerous exercises, both sea-based and on the ground. Moreover, 
we are engaged in discussions with Russia to try to find how we can 
cooperate in the area of missile defense to counter the growing 
ballistic missile threat, as well as to assuage Russian concerns about 
the proposed missile defense program. For example, over the last 
months, we have had numerous exchanges with the Russians on the 
``expert level'' concerning the proposed missile defense sites, as well 
as high-level engagements, including by Secretary Gates, with Russian 
interlocutors.
    At the same time, we must defend our interests and advance our 
values. The Cold War is long over and the United States and Russia are 
no longer strategic competitors, but we are concerned about the 
apparent ``enemy image'' many Russians have of the United States and 
NATO, their suspension of the CFE Treaty, their opposition to missile 
defense plans which are not a threat to their security, and Russian 
arms sales to countries of concern.
    Question. Does support for ratification of the Adapted CFE remain 
in the interest of the United States and its NATO allies?
    Answer. I believe that the CFE regime remains in our interest, and 
that if outstanding problems can be solved, the present Treaty can and 
should be replaced by the Adapted Treaty to reflect post-Cold war 
realities (for example, by eliminating the current Treaty's bloc-to-
bloc structure).
    Question. What do you believe would be the impact of Russian 
suspension of the CFE Treaty on security in Europe?
    Answer. The impact on security will depend on future Russian 
actions. Russian officials have said they will not be bound by CFE 
equipment limitations, but that they have no plans to build up their 
forces as long as other states do not do so.
    The transparency provided by CFE notifications and inspections have 
contributed greatly to where we are today, including the increased 
confidence of the states in the region. It appears that those 
notifications and inspections will not occur during suspension and this 
may decrease the confidence among the states party to the treaty over 
time.
    Question. Is it in the U.S. interest to engage with Russia to 
persuade them to adhere to their obligations under the CFE Treaty?
    Answer. The CFE Treaty and other treaties have contributed greatly 
to where we are today--for example, by leading to reductions in over 
69,000 items of military equipment and establishing current limits that 
contribute to stability in Europe. The Under Secretary for Policy and 
the Office of the Assistant Secretary of Defense for ISA has been fully 
engaged in support of efforts led by the Department of State Assistant 
Secretary Dan Fried and others in encouraging the Russians to reverse 
their decision to suspend. Indeed, we have participated in meetings and 
co-chaired exchanges with the Russians in an attempt to resolve Russian 
concerns related to the treaty. If confirmed, I will continue our 
activities to encourage Russia to reverse its decision on suspension 
and to engage with us to resolve outstanding problems.
    Question. The Strategic Arms Reduction Treaty (START) will expire 
in December 2009. In your view, what elements of this treaty should be 
extended or modified?
    Answer. If confirmed, I would be responsible for the Department's 
overall relationship with Russia. Specific issues related to strategic 
nuclear arms, however, fall under the responsibility of the Assistant 
Secretary of Defense for SO/LIC and Interdependent Capabilities, Mr. 
Vickers. That said, I recognize that START was invaluable in reducing 
strategic forces at the end of the Cold War and providing us with the 
security posture we now enjoy. The context of our strategic 
relationship with Russia has changed since the Cold War, however, and 
discussions on this and related issues should reflect the current 
security contexts in which we now find ourselves. While we are not 
allies with Russia, we do need to cooperate with it on a range of 
issues, including counter-WMD and counterterrorism. If confirmed, I 
will work closely with Assistant Secretary Vickers and the Department 
of State to further our national security interests, including in this 
area. It is my understanding that efforts are underway in the 
interagency to address this issue and that those efforts include 
limited dialogue with the Russians on post-START.
    Question. Do you believe that the international arms control legal 
framework with Russia and other former Soviet states, including the 
Intermediate Nuclear Forces (INF) Treaty, the START, and the Treaty on 
Strategic Offensive Reductions (SORT), continue to promote security and 
stability in Europe and globally?
    Answer. As I noted in my previous answer, I recognize that START 
was invaluable in reducing strategic forces at the end of the Cold War 
and providing us with the security posture we now enjoy. They also 
contributed significantly to the confidence of many of our allies. The 
context of our strategic relationship with Russia has changed since the 
Cold War, however, and discussions with the Russians should reflect the 
current security contexts in which we now find ourselves. While we are 
not allies with Russia, we do need to cooperate with it on a range of 
issues. If confirmed, I would continue the senior-level engagement, as 
well as the transparency and confidence building measures, for building 
trust with the Russians, as well as for providing insight and 
understanding of their concerns.
    Question. In your view does continuing the presence of U.S. 
tactical nuclear weapons in Europe serve any national security purpose, 
and if so, what is that purpose?
    Answer. Yes; the U.S. nuclear forces committed to NATO and based in 
Europe are one of the most tangible signs of our commitment to the 
indivisibility of security to all NATO nations, as well as to extended 
deterrence. In addition, they are a critical political and military 
link between the United States and its European allies. By maintaining 
our commitment to extended deterrence and sizing our force posture at 
the appropriate level, we support our allies and reduce the incentive 
for others to develop independent nuclear capabilities. Moreover, the 
weapons provide a very real capability to respond to aggression and, as 
such, serve as an important deterrent to such aggression.
    Question. If these tactical nuclear weapons were to be removed from 
Europe, could there be any political or other benefits as a result?
    Answer. Removal of those weapons would undermine a visible aspect 
of alliance solidarity and eliminate a capability that, by its very 
existence, helps reduce the incentive for others to develop independent 
nuclear capabilities, and helps deter emerging threats.
    Question. In general, what are your views on continuing to maintain 
U.S. tactical nuclear weapons in Europe? Is there a point in time or a 
set of circumstances at which or under which you would support removing 
these tactical nuclear weapons?
    Answer. NATO's nuclear forces are of critical political-military 
importance. These forces: provide unique capabilities that cannot be 
met by conventional weapons; support the basic NATO precepts of shared 
risks and responsibilities and widespread participation; and strengthen 
the link between North American and European members of the alliance. 
It is my view, as well as that of the current administration and of the 
NATO alliance, that U.S. nuclear weapons should remain in Europe as 
tangible evidence of our commitment to the indivisibility of security 
to all NATO nations.
    Question. If confirmed, what responsibilities would you have with 
respect to nonproliferation programs, such as the Cooperative Threat 
Reduction (CTR) Program, in Russia and the states of the former Soviet 
Union and in making any decisions about where and when geographic 
expansion of the CTR programs should occur?
    Answer. If confirmed, I will work closely with the Assistant 
Secretary for Global Security Affairs, who is responsible for the 
management of nonproliferation programs for the DOD, to ensure that 
policy decisions regarding the direction of CTR programs take into 
account regional and political-military implications.

                             AFRICA COMMAND

    Question. Full Operational Capability (FOC) for AFRICOM is 
scheduled for October 1, 2009, and there remains a significant amount 
of work to be completed, including standing up a staff, an adequate 
headquarters, and a forward deployed capability.
    In your assessment, is the DOD moving too quickly to make fully 
operational a major geographic combatant command or is the current 
schedule manageable?
    Answer. The timelines we have developed for AFRICOM's establishment 
as a fully operational unified command are aggressive; however, I 
believe we can achieve them through continued concerted efforts within 
the Department, with our interagency partners, and with the support of 
Congress. AFRICOM reached initial operational capacity this past 
October and is progressing steadily toward FOC in October 2008. 
Although FOC is a significant milestone, the command will continue to 
evolve and improve as we incorporate lessons learned and best 
practices. If confirmed, I will continue to dialogue with Congress in 
establishing the command.
    Question. AFRICOM is contemplated as playing a larger role in 
development activities than have other combatant commands. On the 
African continent, the U.S. Agency for International Development 
(USAID) currently has more than 20 bilateral field missions and three 
regional missions.
    What is your understanding of the role AFRICOM will play in the 
area of development activities?
    Answer. I fully recognize the unique role and significant 
capabilities of USAID as the primary U.S. agency providing development 
and disaster relief assistance abroad. AFRICOM will play a supporting 
role in development activities when necessary and appropriate. USAID 
staff within the command will help ensure that such responses when 
appropriate and necessary are well-planned, well-coordinated, and well-
executed, to include their integration with other USAID efforts in the 
region.
    Question. From a policy perspective, what do you believe to be the 
appropriate role of the DOD in delivering development and humanitarian 
services?
    Answer. DOD, and therefore the command, plays a supporting role in 
delivering development and humanitarian services, as required. The U.S. 
military is not an instrument of first resort in providing humanitarian 
assistance but supports civilian relief agencies. I recognize that 
USAID is the principal agency extending assistance to countries 
recovering from disaster or authorized to receive development 
assistance.

                     U.S. MILITARY BASING IN EUROPE

    Question. On August 16, 2004, the President announced an Integrated 
Global Presence and Basing Strategy (IGPBS) touted as the most 
comprehensive restructuring of U.S. military forces overseas since the 
end of the Korean War. As part of force transformation efforts which 
also included a domestic base realignment and closure round, hundreds 
of military bases and facilities at overseas locations would be closed 
and roughly 70,000 personnel would return from Europe and Asia to bases 
in the United States. Recently the Secretary of Defense has indicated 
that the number of U.S. military personnel to be returned from Europe 
may potentially be reduced, and some bases originally scheduled for 
closure might remain open for an unspecified period of time.
    Do you support the goals of the IGPBS which would reduce the number 
of installations and the force posture of U.S. forces stationed 
overseas, specifically in Germany?
    Answer. Yes. While I defer to the Assistant Secretary of Defense 
for SO/LIC and Interdependent Capabilities, if confirmed, I will 
support the decisions supporting the current posture plan for Europe to 
transform Cold War legacy forces and bases into a more relevant and 
flexible network of capabilities for dealing with post-September 11 
security challenges. It is my understanding that since the IGPBS was 
signed in 2004, for various reasons, General Craddock has requested 
that the Secretary reconsider the number of forces that will remain in 
Germany, at least for the short term. If confirmed, I look forward to 
working closely with Congress on this issue.
    Question. What is your understanding of the reasons for the 
Secretary of Defense to reassess the original goals of the IGPBS?
    Answer. As stated above, the Department is considering retaining 
some force posture in theater longer than originally anticipated to 
address a number of issues, including the near-term security 
cooperation needs with European partners. This potential change may 
also help ensure the quality of life for soldiers and families as part 
of the Army's plans for stationing new ``Grow the Force'' units. If 
confirmed, I will work closely with Congress on this issue.
    Question. In your assessment, does DOD need to propose to the 
President an update to the IGPBS strategy due to new trends or emerging 
threats?
    Answer. The Department continually reassesses and refines its 
posture plans to address changes in the strategic environment.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Secretary of Defense?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John McCain

                                 KOSOVO

    1. Senator McCain. Ms. Long, it is expected that in the coming 
weeks Kosovo will declare its independence and that declaration will be 
supported by the United States and the European Union (EU). Serbia and 
Russia oppose a unilateral declaration of Kosovo independence creating 
the potential for instability and violence in that volatile region. Is 
the NATO Kosovo Force (KFOR) prepared for this situation and for the 
potential for increased violence in and around Kosovo?
    Ms. Long. NATO's KFOR is prepared to deal with potential increased 
violence in Kosovo. Since mid-2006, KFOR has conducted a series of 
planning exercises and rehearsals to prepare for all likely 
contingencies. These planning sessions and exercises often include 
members of the local and United Nations Interim Administration in 
Kosovo police, as well as representatives from the many international 
and non-governmental organizations operating in Kosovo. KFOR has also 
increased its operational tempo, visible presence, and intelligence 
gathering activities.
    Through the Joint Implementation Commission, KFOR maintains contact 
with the Armed Forces of Serbia, Montenegro, Albania, and Macedonia to 
ensure transparency and reduce tension.
    Over the past few years, NATO has succeeded in removing nearly all 
caveats that troop contributing nations have placed on the use of their 
forces. The KFOR commander now has the authority to move his forces 
anywhere they are needed. KFOR routinely moves units from their 
habitual sectors to other parts of Kosovo to familiarize them with the 
terrain and local situation.
    The KFOR commander can also call on a series of local and over the 
horizon Reserve Forces. These units rehearse deploying to Kosovo and 
operating throughout the province. Although KFOR is only authorized to 
operate in Kosovo, NATO maintains small headquarters in Bosnia-
Herzegovina, Albania, Macedonia, and Belgrade. If necessary, NATO can 
deploy its over the horizon Reserves to Bosnia-Herzegovina to reinforce 
the EU's peacekeeping force.

    2. Senator McCain. Ms. Long, what do you foresee as the worst case 
scenario for which KFOR must be prepared?
    Ms. Long. Since Serbia's President, Foreign and Defense Ministers, 
and Chief of General Staff have stated that Belgrade will not intervene 
in Kosovo militarily, the worst case scenario for which KFOR must be 
prepared is a Kosovar Serb rejection of Pristina's declaration of 
independence. Serbs comprise the vast majority of people living in 
northern Kosovo--an area that shares a contiguous border with Serbia.
    A declaration and recognition of independence could spark inter-
ethnic violence, cause Kosovar Serbs living in southern Kosovo to leave 
their homes, and cause northern Serbs to challenge KFOR's authority. A 
Kosovar Serb rejection of independence could also result in a de facto 
partition. NATO and the international community have developed 
contingency plans for this and other scenarios.
    If the leadership in Belgrade does decide to intervene militarily 
in Kosovo, NATO has the authority under U.N. Security Council 
Resolution 1244 and a 1999 North Atlantic Council decision to engage in 
combat operations.

    3. Senator McCain. Ms. Long, what steps are being taken 
diplomatically to lessen the possibility that serious and sustained 
violence will result?
    Ms. Long. We and our State Department colleagues have been working 
closely with allies, countries in the region, NATO, the EU, the U.N. 
Interim Administration Mission in Kosovo, and other international 
organizations to lessen the probability that sustained and serious 
violence will occur in Kosovo.
    We worked diligently to develop and solidify international 
consensus to resolve Kosovo's political status and asked Ambassador 
Frank Wisner to represent the United States during the recent EU/
Russia/U.S. Troika discussion.
    We support the EU's decision to plan for an International Civilian 
Office and deploy a police and justice mission and we have asked 
nations that provide troops to KFOR to keep their forces in Kosovo 
regardless of the outcome of the status process.
    Finally, we maintain constant contact with officials in Belgrade 
and Pristina to reinforce our expectation that those countries refrain 
from provocative acts and actively discourage violence of any kind. The 
EU and other partners have taken similar action. We have also conveyed 
our expectations to all the relevant communities in Serbia and Kosovo 
and seek to keep open lines of communication with them.

                             AFRICA COMMAND

    4. Senator McCain. Ms. Long, establishment of the new U.S. Africa 
Command (AFRICOM) continues to be a work in progress as both the 
structure of the organization and its mission are continually being 
refined. Recent briefings to committee staff have suggested that 
together, the military services could provide up to 1,000 personnel to 
the AFRICOM headquarters staff. Where would this large number of 
service personnel dedicated to AFRICOM be stationed?
    Ms. Long. The headquarters for AFRICOM is currently at Kelley 
Barracks, Stuttgart, Germany. This will be the interim location while 
the headquarters staff is assembled and refined during a multi-year 
process. The Kelley Barracks site makes use of existing facilities that 
have housed U.S. military administrative offices and headquarters staff 
for over 60 years. This location is a few kilometers from the U.S. 
European Command at Patch Barracks, Vaihingen, Germany. This allows for 
specialists and administrative staff to closely coordinate during the 
transition.
    Possible locations for future AFRICOM presence are still under 
discussion. We believe AFRICOM will be more effective if some members 
of the headquarters staff are physically living and working on the 
African continent. This will allow them to continuously interact face-
to-face with their counterparts in African governments and with 
nongovernmental organizations. Site-selection criteria for future 
AFRICOM sites have been developed in coordination with the Department 
of State and the U.S. Agency for International Development (USAID). 
Some of the criteria include political stability, security, access to 
regional and intercontinental transportation, and availability of 
acceptable infrastructure. Other criteria also under consideration 
include quality of life, proximity to the African Union and regional 
organizations, proximity to U.S. Government hubs, and adequate Status 
of Forces Agreements. We have also discussed possible sites with 
potential host governments and a decision will be made in close 
coordination with State, USAID, embassies, Congress, and host 
governments.

    5. Senator McCain. Ms. Long, what exactly would they be charged 
with doing?
    Ms. Long. AFRICOM is a unified combatant command that has 
geographic responsibilities for all U.S. military functions and 
activities for the continent of Africa. Its focus will be on 
prevention, presence, and preparation, instead of reaction and 
response. Day-to-day tasks will include planning for and conducting 
security assistance, building partnership capacities, encouraging 
security sector reform, and enhancing the professionalism of African 
militaries.
    As with all combatant commands, AFRICOM will also be responsible 
for the functions of command over assigned military forces. These 
functions include organizing and employing commands and forces, 
assigning tasks, designating objectives, and giving authoritative 
direction over all aspects of military operations. Other functions 
include conducting joint training and providing the logistics necessary 
to accomplish assigned missions. Command authority will be exercised 
through subordinate military organizations, normally through Joint 
Force Commanders and Service component commanders.
    The guiding principle for AFRICOM's headquarters staff will be to 
ensure close coordination of its activities with other U.S. Government 
departments and agencies and as appropriate with foreign governmental, 
international, non-governmental, private, and nonprofit organizations. 
The purpose will be to enhance and synchronize security assistance 
activities in Africa as much as possible. To enable this coordination, 
AFRICOM will have an integrated staff of permanently assigned DOD 
(military and civilian) and non-DOD U.S. Government personnel from 
organizations such as the State Department and the USAID. In addition, 
we hope to include liaison officers and staff from foreign military and 
other non-U.S. civilian organizations in the AFRICOM headquarters, with 
corresponding AFRICOM liaison personnel assigned duty at selected 
external organizations.

    6. Senator McCain. Ms. Long, considering that this command will not 
have dedicated military forces assigned to it, do you think the 
headquarters staff currently envisaged is larger than needed for a 
command whose focus is more on theater engagement than on military 
operations?
    Ms. Long. The size of the headquarters staff was developed based on 
an analytic process that links assigned missions and requirements to 
necessary functions and tasks. Personnel requirements, descriptions, 
and skills were then developed to appropriately perform these 
functions.
    Unlike traditional unified combatant commands, AFRICOM will focus 
principally on war prevention rather than warfighting. However, as a 
regional combatant command, it is possible that AFRICOM could be 
assigned command military forces to conduct military operations to 
deter aggression and respond to crises. Therefore, the size of the 
headquarters staff has been designed to appropriately perform both 
prevention and response functions.
                                 ______
                                 
    [The nomination reference of Mary Beth Long follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  November 8, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Mary Beth Long, of Virginia, to be an Assistant Secretary of 
Defense, vice Peter W. Rodman, resigned.
                                 ______
                                 
    [The biographical sketch of Mary Beth Long, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                 Biographical Sketch of Mary Beth Long

                          CURRENT ASSIGNMENTS

    Mary Beth Long became Principal Deputy Assistant Secretary of 
Defense for International Security Affairs in August 2005. In this 
capacity, she serves as the principal assistant to the Assistant 
Secretary of Defense for International Security Affairs (ISA), who is 
the principal advisor to the Secretary of Defense on the formulation 
and coordination of international security strategy and policy for the 
Middle East and Persian Gulf; Europe and the North Atlantic Treaty 
Organization; and Africa. Since March 2007, Ms. Long has represented 
ISA in the Assistant Secretary's absence.
    Prior to her current position, Ms. Long was appointed Deputy 
Assistant Secretary of Defense for Counternarcotics on May 19, 2004. 
She oversaw the Department's counternarcotics efforts in the United 
States and abroad. In addition to developing the Department's 
counternarcotics policy worldwide, including for Afghanistan and 
Colombia, Ms. Long managed over 100 programs supporting domestic and 
international law enforcement, and oversaw funds in excess of $900 
million.

                            PAST EXPERIENCES

    Ms. Long worked for the Central Intelligence Agency, Directorate of 
Operations, from 1986 to 1999. Her CIA experience includes operations 
targeting narcotics, WMD, and terrorism targets. From May to September 
1996, she served as Deputy and Acting Chief for the Haiti Task Force. 
She was co-chair of a joint priority CIA-DEA counternarcotics targeting 
team. She has worked extensively with the DEA and FBI. While at the 
CIA, Ms. Long also worked extensively with the State Department and 
served separately as an Embassy Principal Money Laundering Officer and 
an Embassy representative to multilateral negotiations on weapons 
issues. During her time at the Agency, Ms. Long successfully completed 
the Clandestine Operations in Dangerous Areas (CODA) course and 
paramilitary training. She received several CIA awards, including some 
for her work in covert action. From 1999 until May 2004, Ms. Long 
practiced law with Williams & Connolly LLP, where she specialized in 
civil litigation matters.

                               EDUCATION

    Ms. Long is a graduate (cum laude) of Washington and Lee University 
School of Law and a University Scholar and Honors Graduate from the 
Pennsylvania State University (cum laude), where she received a 
Bachelor of Arts in Communications Studies. Ms. Long also attended the 
Taiwan National University and the Fu Ren Catholic University (Taiwan). 
She is fluent in Spanish and has some familiarity with Chinese and 
Arabic.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Mary Beth Long 
in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Mary Beth Long.

    2. Position to which nominated:
    Assistant Secretary of Defense for International Security Affairs.

    3. Date of nomination:
    November 9, 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 20, 1963; Clearfield, PA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Divorced (1991).

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Washington and Lee School of Law (1995-1998), JD granted in May 
1998.
    Penn State University (1981-1985), B.A. Honors Graduate, cum laude, 
1985.
    Taiwan National University (1983).
    Fu Ren Catholic University, Taiwan (1983).

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Department of Defense, Principal Deputy Assistant Secretary of 
Defense (2005-current), Pentagon.
    Department of Defense, Deputy Assistant Secretary of Defense for 
Counternarcotics (2004-2005), Pentagon.
    Williams & Connolly LLP, associate lawyer (1999-2004), Washington, 
DC.
    Central Intelligence Agency, Directorate of Operations (1986-1999), 
Various.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Penn State University Schreyer Honors College, External Board 
Member.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    American Bar Association, member.
    Virginia Bar Association, inactive member.
    Penn State University Schreyer Honors College, External Board 
Member.
    Phi Beta Kappa, member.
    Omicron Delta Kappa, member.
    Save the Bay, member.
    Penn State Alumni Association, member.
    Washington and Lee School of Law Alumni, member.
    Republican Party National Membership Association, member.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Friends of the Eighth District (date: 2003) $250 (funds returned).
    Bush-Cheney 2004 (date: 2003) $750.
    Republican National Committee (date: 2006, 2005) $200.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
Academic or associated with schools:
    University Scholars Program, Honors Graduate, Penn State (1985), 
cum laude.
    Outstanding Scholar Alumni, Schreyer Honors College, Penn State 
(2006) (inaugural recipient).
    Phi Beta Kappa (1986-current) (leadership/academic achievement).
    National Negotiation Competition, Second Place (1997).
    Best Oral Advocate, Moot Court (1997).
    Golden Key Honor Society (1980).
Professional:
    Central Intelligence Agency (various Superior and Outstanding 
Performance Awards 1987-1999).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    The nominee responded and the information is contained in the 
committee's executive files.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Mary Beth Long.
    This 19th day of November, 2007.

    [The nomination of Mary Beth Long was reported to the 
Senate by Chairman Levin on December 18, 2007, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on December 19, 2007.]
                              ----------                              

    [Prepared questions submitted to James Shinn by Chairman 
Levin prior to the hearing with answers supplied follow:]

                        Questions and Responses

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I do not see any need to modify the Goldwater-Nichols Act.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I do not see any need to modify the Goldwater-Nichols Act.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of Defense for Asian and Pacific Security 
Affairs (ASD(APSA))?
    Answer. It is my understanding that the ASD(APSA), a newly created 
position in the Office of the Under Secretary of Defense for Policy 
(USD(P)), is the civilian advisor to the USD(P) and the Secretary of 
Defense on national security matters in the Asian and Pacific region. 
The ASD(APSA) is responsible for developing regional security and 
defense strategy; formulating and coordinating regional defense 
policies in support of the Secretary's objectives; overseeing 
operational execution of the Secretary's approved policies for the 
region; and fostering bilateral and multilateral security relationships 
in the region. The ASD(APSA) is the focal point for Asia policy within 
the Department of Defense (DOD) for the DOD components, the United 
States Pacific Command, United States Central Command, and for the 
Asia-Pacific Center for Security Studies. The ASD(APSA) represents the 
Office of the Secretary of Defense (OSD) in interagency policy 
deliberations and international negotiations related to the Asian and 
Pacific region.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I believe that I am qualified to perform these duties, if 
confirmed, by a combination of regional expertise, management training, 
and experience in several U.S. Government agencies.
    In terms of regional expertise, I have spent a good deal of my 
adult life working on Asia problems, as a businessman, as a scholar, 
and as a U.S. Government official. I have worked or traveled in every 
country in the area of responsibility (AOR) (with a few notable 
exceptions such as North Korea) and lived in the region for about 7 
years. As a business executive, I set up and subsequently helped manage 
subsidiary corporations in Japan, South Korea, Hong Kong, China, 
Malaysia, the Philippines, Singapore, Australia, New Zealand, and 
India. As a scholar I wrote several publications and books on the 
region, which in retrospect have pretty well stood the test of time.
    In terms of management skills, I am a professional manager by 
trade, with a good track record of setting goals and achieving results. 
I have built and managed organizations ranging from 30 to 3,000 
employees, with both line and staff experience on the enterprise level, 
in various positions with prime responsibility for production 
operations, research and development, sales and marketing, finance and 
audit, and corporate governance.
    In terms of government experience, I have worked in the Department 
of State, the Central Intelligence Agency, and the DOD--principally on 
Asian security and economic problems, and closely involved in the 
interagency policy process.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the ASD(APSA)?
    Answer. Given the breadth of the responsibilities of this position 
and the complexity of the region, I have a great deal to learn. If 
confirmed, I intend to focus on three areas in particular: a better 
understanding of the title 10 authorities applicable to the DOD and the 
military departments, how the DOD trains and equips forces for use in 
the region, especially with regard to the force and base realignments 
in Asia; a better grasp of how decisions are made and operationally 
executed for force allocation and deployment in the region generally, 
and for Afghanistan in particular; more insight on congressional 
process, policy concerns, and preferences in Asia, especially for 
budget formulation and conditionality on security cooperation in the 
region.

                             RELATIONSHIPS

    Question. Please describe your understanding of the relationship of 
the ASD(APSA) to the following officials:

          The Secretary of Defense;
          The Deputy Secretary of Defense;
          The Under Secretary of Defense for Policy;
          The Under Secretary of Defense for Intelligence;
          The Chairman of the Joint Chiefs of Staff;
          The Secretaries of the Military Departments;
          The Chiefs of Staff of the Services;
          The Commander, U.S. Special Operations Command;
          The Commander, U.S. Pacific Command;
          The Commander, U.S. Central Command;
          The Principal Deputy Under Secretary of Defense for Policy;
          The Assistant Secretary of Defense for Special Operations and 
        Low Intensity Conflict and Interdependent Capabilities;
          The Assistant Secretary of Defense for International Security 
        Affairs;
          The Assistant Secretary of Defense for Homeland Defense and 
        Americas Security Affairs; and
          The Assistant Secretary of Defense for Global Security 
        Affairs.

    Answer. If confirmed, I will report to the Secretary of Defense and 
Deputy Secretary of Defense through the USD(P). I will work closely 
with the Principal Deputy USD(P). I expect to develop and maintain a 
close working relationship with under secretaries and assistant 
secretaries across the Department, the General Counsel of the DOD, the 
Secretaries of the Military Departments, the Chairman and Vice Chairman 
of the Joint Chiefs of Staff, and with combatant commanders. As 
appropriate, if confirmed, I would also work closely with and 
coordinate with the other Assistant Secretaries of Defense within OSD 
Policy; a lot of policy challenges in Asia involve resources and 
expertise that are distributed across the functional portfolios of OSD. 
Examples of this coordination include working with the Assistant 
Secretary of Defense for International Security Affairs on the role of 
North Atlantic Treaty Organization (NATO) in Afghanistan; the Assistant 
Secretary of Defense for Special Operations and Low Intensity Conflict 
and Interdependent Capabilities on counterterrorism and Pakistan; the 
Assistant Secretary of Defense for Homeland Defense and Americas 
Security Affairs on humanitarian assistance and disaster relief efforts 
in Asia; and the Assistant Secretary of Defense for Global Security 
Affairs on counternarcotics, nuclear, and security assistance matters.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the next ASD(APSA)?
    Answer. I believe there are six major challenges in Asia and the 
Pacific that the next ASD(APSA) will face. First, in Afghanistan, the 
Afghan Government needs support to counter and defeat the insurgency. 
Second, North Korea's conventional military threat, weapons of mass 
destruction, and proliferation activities are a threat to regional 
security. Third, China's military buildup may be tipping the stability 
balance in the Taiwan Strait and poses an unknown risk to the region at 
large. Fourth, there are a lot of challenges that could slow down or 
derail the alliance transformation and strengthening of our important 
security alliances with Japan and South Korea. Fifth, a conventional or 
even nuclear confrontation between Pakistan and India would be a 
disaster. Finally, in Southeast Asia we face challenges in sustaining 
defense reforms and democratic consolidation, as well as maintaining 
effective counterterrorism cooperation.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. Strategies for dealing with these challenges are largely in 
place at the Pentagon, among the U.S. interagency, and in agreements 
with our partners in the region. If confirmed, I see the challenge as 
principally one of careful, sustained execution of these strategies 
rather than devising new initiatives. In Afghanistan, my principal 
focus would be on supporting coalition efforts to train and equip 
Afghan security forces, as well as integrate both the military and 
governance elements of the counterinsurgency. This also includes 
working with Pakistan to eliminate safehavens in the Federally 
Administered Tribal Areas (FATA). Regarding North Korea, I would work 
with the Department of State and regional partners to press North Korea 
to meet its commitments--including denuclearization--as agreed to 
during the Six-Party Talks, while maintaining the capability to deter 
potential North Korea military threats and countering proliferation 
activities. With regard to China, the strategy is one of careful, 
measured military engagement with the Government of China and the 
Peoples Liberation Army (PLA), pressing for transparency while also 
sustaining our military capabilities to fulfill our defense commitments 
in the region. In order to sustain the realignment and transformation 
processes already underway, we need to review progress constantly and 
resolve challenges in the bilateral relations with both Tokyo and 
Seoul: these are complex, multi-stage projects that require sustained 
political and budgetary support on both sides of the Pacific. In South 
Asia, I would work with the Department of State to promote confidence 
building measures between India and Pakistan while continuing to 
develop our bilateral security relations with both nations. Finally, in 
Southeast Asia I would sustain and expand our relations with regional 
militaries (Burma notably not included) to promote regional security, 
defense reforms, and respect for human rights.

                     GLOBAL DEFENSE POSTURE REVIEW

    Question. Perhaps more than in any other combatant command, 
military exigencies in the U.S. Pacific Command are subject to the 
``tyranny of distance'' in getting forces to points of conflict.
    In your view, how important is the forward basing strategy to the 
ability of U.S. Pacific Command to execute its operational 
contingencies, and did the Global Posture Review appropriately take 
this into account?
    Answer. Forward basing remains a key element of United States 
security strategy in the Pacific. This was borne out in the Department 
of Defense comprehensive review of U.S. global defense posture from 
2003-04, which took into account the contingency and steady-state needs 
of our forces regionally and globally. This review examined operational 
needs within and across the theater, and emphasized transforming our 
host-nation relationships, as well as changing the footprint of 
facilities and forces in the region to deal with future security 
challenges more effectively.
    Question. What do you see as the implications of the proposed 
global force structure changes with respect to the Asia-Pacific, 
particularly in Korea and Japan?
    Answer. I believe our posture changes in Korea and Japan are 
strengthening our alliances and better positioning U.S. forces. By 
relocating U.S. personnel, we will remove longstanding host-nation 
concerns such as noise and encroachment without compromising their 
missions. We will also improve and enhance our mutual defense 
infrastructure in the region, incorporating and executing several large 
investment projects from the governments of South Korea and Japan.
    Question. What impact, if any, do you expect the proposed changes 
in posture will have on our ability to defend South Korea and Japan, 
and to react to a crisis in the Taiwan Strait?
    Answer. These posture changes increase our flexibility to respond 
when and where U.S. forces are needed, and strengthen our overall 
capacity to deter coercive and aggressive action in the Asia-Pacific 
region.
    Planned posture changes in the region will strengthen deterrent and 
strike capabilities (i.e., U.S. maritime, air, and deployable ground 
forces) forward in the Pacific as well as strategic mobility and 
command and control (C2) support from the United States--all of which 
are relevant to supporting our allied commitments for self-defense in 
contingencies. The United States has global responsibilities, and the 
changes to our force posture are a reflection of these 
responsibilities. These posture changes are not directed against a 
particular country or contingency. Rather, we believe that by being 
clear about our interests and supporting our allies and partners, 
conflict can be avoided.
    Question. The Army is planning to add 65,000 personnel to its 
permanent force structure over the course of the Future Years Defense 
Program, including the creation of six additional Active-Duty combat 
brigades. The Marine Corps is proposing to add 27,000 personnel over 
the same period.
    Do you believe that any of these additional personnel and units 
should be assigned to commands located in Pacific Command's AOR in 
order to meet Pacific Command's requirements?
    Answer. The proposals to expand the Army and Marine Corps would 
allow us to reexamine our basing options and ensure that we have the 
optimum mix of forces to execute the National Military Strategy and its 
Asian components. If confirmed, I would work closely with the Commander 
of the U.S. Pacific Command and others in the Department of Defense to 
determine if and where additional forward deployed forces in Asia might 
make sense. Before I would provide my recommendation to Department of 
Defense leadership, we would also want to consult closely with our 
allies and regional partners, given the complexity of the existing 
alliance agreements and the challenging roadmap for long-term execution 
of the realignment plans.
    Question. If so, to what extent do you believe these additional 
forces should be forward-deployed, as in Korea or Japan, or deployed in 
the United States, such as Hawaii or Alaska?
    Answer. If confirmed, I would need to review specific proposals 
before making a recommendation. In general, I believe that these 
deployment decisions should be driven principally by the evolving and 
potential threats in Asia, as well as by the Department of Defense 
contingency plans and their training requirements. Currently, I believe 
that U.S. force levels in Korea and Japan--as agreed to under our 
ongoing alliance transformation discussions--represent an appropriate 
posture for U.S. defense needs. Going forward, we should continually 
evaluate other options--including stationing those forces elsewhere in 
the world, or in the United States and its territories.

                              NORTH KOREA

    Question. North Korea represents one of the greatest near-term 
threats to U.S. national security interests in Asia.
    What is your assessment of the current security situation on the 
Korean peninsula and the diplomatic efforts to persuade North Korea to 
verifiably dismantle its nuclear weapons program?
    Answer. Even as the North and South negotiate with each other to 
reduce tensions, the DMZ remains heavily fortified, and two of the 
world's largest conventional military forces face each other across 
that line. The United States also has 28,000 troops on the Peninsula 
and is committed to the defense of the South in case of an attack by 
the North.
    The Department of State is the lead on the Six-Party Talks 
mechanism, and it appears that some progress has been made. The proof 
is in the implementation, however; and the next major milestone is 
North Korea's full declaration of all its nuclear facilities, 
materials, and programs by the end of this year.
    Question. What is your assessment of the threat posed to the United 
States and its allies by North Korea's ballistic missile and WMD 
capabilities and the export of those capabilities?
    Answer. North Korea is a serious threat to the United States and to 
the rest of Asia. The North's missile capabilities allow it to strike 
all of its neighbors and the United States. North Korea exports 
missiles to the rest of the world. North Korea now has a demonstrated 
nuclear capability and has made veiled threats of proliferating nuclear 
capabilities.
    Question. Do you believe that Kim Jong Il would be willing to give 
up North Korea's nuclear weapons and facilities? If so, under what 
conditions?
    Answer. I do not know whether, or if so under what conditions, Kim 
Jong Il and the North Koreans would be willing to give up their nuclear 
weapons, programs, and facilities.

                     REPUBLIC OF SOUTH KOREA (ROK)

    Question. Since the end of World War II, the U.S.-ROK alliance has 
been a key pillar of security in the Asia Pacific region. This 
relationship is currently undergoing significant change.
    Please describe the state of the current U.S. security relationship 
with South Korea.
    Answer. Our alliance is over a half-century old and it remains 
strong, reflecting the common values and aspirations of our peoples. 
The North Korean nuclear and conventional threat remains the focal 
point of our alliance's deterrent and defense posture. I believe the 
Republic of Korea's troop deployments to Iraq and Afghanistan have made 
significant contributions to the global war against terrorism. Korea 
has also made peacekeeping contributions to the U.N. Mission in 
Lebanon. South Korea's commitment to reconstruction in Iraq and 
Afghanistan reflects our shared concern for freedom in other parts of 
the world.
    Question. If confirmed, what measures, if any, would you take to 
improve the U.S.-South Korean security relationship?
    Answer. First, we must complete the realignment of U.S. forces on 
the peninsula. Execution of this complex task will alleviate much of 
the friction between U.S. forces and Korean citizens, while still 
providing the necessary levels of deterrence and defense readiness and 
posture. Our Korean partner is committed to this task and is on track 
so far. Second, we must complete the historic transition of operational 
command in 2012, when Republic of Korea Forces will assume the lead 
role in the defense of their nation, backed up fully by the supporting 
role of United States forces. The ROK Armed Forces and USFK are engaged 
in the complex investments of equipment, training, and facilities to 
prepare for this transition; so far, this process too is on track. 
Third, we must continue to assess the mutual benefits of this alliance 
and explain those benefits (and their costs) to our publics on both 
sides of the alliance.
    Question. Do you support expanding the number of personnel assigned 
to Korea for 2 or 3 years of duty and the number of military and 
civilian personnel authorized to be accompanied by their dependents for 
these longer tours of duty?
    Answer. General Bell, the Commander of the U.S. Forces in Korea, 
has explained the merits of this proposal, and as far as I understand, 
it is consistent with the policy goals of the force realignment and our 
alliance with the Republic of Korea. Having said that, I believe the 
Department of Defense will also need to study the proposal to ensure 
that we have adequate resources to support the expansion.

                                 JAPAN

    Question. How would you characterize the U.S. security relationship 
with Japan?
    Answer. Japan is a valued ally and anchor of democracy and 
prosperity in Asia. Our alliance has held fast through the turbulence 
of the post-Cold War, political turnover in Japan, and some contentious 
trade disputes. The United States and Japan are in the middle of a 
complicated force transformation process that requires a lot of effort, 
money, and time. That process is still on track. On the other hand, 
Japan has been slow in expanding the role and missions of its Self-
Defense Force. We have also had problems with the proper handling of 
classified information in Japan and are working together to prevent 
this in the future. If confirmed, I would work to keep the 
transformation process on track and seek to expand our cooperation in 
additional areas of mutual concern, such as missile defense.
    Question. What is your view of Japan's current level of 
contribution to Operation Enduring Freedom (OEF) and Operation Iraqi 
Freedom (OIF)?
    Answer. Japan is wrestling with a fundamental re-evaluation of how 
to use its very capable self defense forces in international security 
missions. The overall trend has been forward, but slow. However, the 
decision to suspend support to OEF was a backward step, and a 
disappointment to members of the coalition and to many in Japan itself. 
Japan's refueling efforts in the Indian Ocean and Japanese 
participation in OEF were important both to the war on terror and to 
demonstrate Japan's contributions to the region's future. Security and 
reconstruction operations are continuing, and we are working to 
mitigate the loss of Japan's refueling support. In terms of Japan's 
support for Iraq, Japan's Ground Self-Defense Forces served in Iraq 
from February 2004 to July 2006. Its Air Self-Defense Forces continue 
to provide C-130 airlift support. Japan has also been a major financial 
contributor in support of efforts in Iraq and Afghanistan.
    Question. If confirmed, what if anything, would you do to encourage 
greater Japanese participation in these operations?
    Answer. If confirmed, I would urge the Japanese government to 
implement a new legal basis for continued participation in OEF that is 
consistent with the needs of the coalition.
    Question. What steps, if any, do you believe Japan ought to take to 
become a more active partner in security activities with the United 
States and in the international security arena?
    Answer. The security environment in Asia is changing and we need a 
more capable alliance with Japan to deal with those challenges, with 
greater interoperability between our Armed Forces at the strategic, 
operational, and tactical levels. If confirmed, I would work to 
encourage Japan's increasing contributions to the alliance, both 
regionally and globally. Cooperation should range from missile defense 
to increased joint training opportunities--in Guam for example.
    Question. In the interest of increased security cooperation among 
Asian democracies, what steps, if any, should Japan take to address 
outstanding grievances with its neighbors?
    Answer. I believe it is important for Japan to cultivate 
constructive relations with all of its neighbors. By moving forward, 
Japan and other East Asian nations can increase their security 
cooperation. By working with other U.S. allies and friends in the 
region, Japan can increase its contribution to peace, security, and 
prosperity throughout Asia and globally.

                          CHINA--RELATIONSHIP

    Question. Many observers believe that one of the key national 
security challenges of this century is how to manage China's emergence 
as a major regional and global economic and military power.
    How would you characterize the U.S. relationship with China?
    Answer. I would characterize the U.S.-China security relationship 
as complex, with some elements of cooperation and others of potential 
competition. The military aspect of the relationship is embedded within 
an even more complex set of political and economic relationships 
between Washington and Beijing, and fundamentally colors our security 
relationships with Japan, South Korea, the Southeast Asian nations, and 
Taiwan. Our task at the Department of Defense is to expand the 
cooperative aspects of the military relationship where it builds 
confidence and avoids misunderstandings, while also preparing to deter 
or counter points of security competition.
    Question. What is your assessment of the current state of U.S.-
China military-to-military relations, and do you favor increased 
military-to-military contacts with China?
    Answer. I would assess current U.S.-China military-to-military 
relations as generally positive, with some signs of progress, sometimes 
lacking in transparency, and marred by incidents such as the ASAT shot 
in January 2007, the broaching of a Song-class submarine near the 
U.S.S. Kitty Hawk in October 2006, and the Kitty Hawk port denial in 
November 2007. I understand and support the statutory limitations on 
U.S.-China military exchanges provided for in section 1201 of the 
National Defense Authorization Act for Fiscal Year 2000.
    Question. How do you assess the current cross-Strait relationship, 
and how can we help to prevent miscalculation by either side?
    Answer. I assess the current cross-Strait relationship between 
China and Taiwan as tense but relatively stable. In order to help 
prevent miscalculation by either side, I support U.S. policy of being 
committed to a peaceful resolution of the China-Taiwan problem in a 
manner acceptable to the people on both sides of the Taiwan Strait. I 
support the President's stated policy of one China, based upon the 
three communiques and the Taiwan Relations Act. If confirmed, I would 
oppose any unilateral acts by China or Taiwan to change the status quo, 
as we define it.
    From a defense perspective, I believe the best way to prevent 
miscalculation by either side is to remain firm in our commitments to 
Taiwan, while maintaining a candid, constructive relationship with the 
PRC. A strong Taiwan is more capable of engaging in political dialogue 
with the PRC and resisting coercion.
    Question. China recently denied permission to U.S. military ships 
for port visits to Hong Kong and for U.S. vessels to take refuge in 
Chinese ports or waters during inclement weather.
    What is your view of the causes of these Chinese denials, and what, 
if anything, can be done to ensure that this does not happen in the 
future?
    Answer. We raised our concerns with the Chinese, and have not 
received a coherent official explanation, as far as I know. This was an 
unfortunate decision by China and ran counter to well-established norms 
of maritime behavior.
    Better communications with the Government of China and with the 
PLA, such as by implementing the long-delayed direct Defense Telephone 
Link, and more substantive bilateral exchanges--especially under the 
Military Maritime Consultative Agreement--may help to avoid such 
problems in the future, but they certainly cannot ensure they don't 
happen again.
    Question. On April 1, 2001, a Chinese jet collided in mid-air with 
a U.S. Navy EP-3 aircraft endangering the U.S. personnel and resulting 
in the death of the Chinese pilot.
    Describe the steps that have been taken to prevent incidents of 
this nature in the future. What additional efforts, if any, do you 
believe may be necessary?
    Answer. During the most recent round of U.S.-China Military 
Maritime Consultative Agreement talks, both sides agreed to conduct a 
joint maritime search and rescue exercise, which was completed in 
November 2006. The value of this type of exchange is that it creates a 
forum in which each side can gain a better understanding of how the 
other would respond in the event of a disaster at sea. These types of 
events can also help to improve the safety of sailors and airmen 
operating in close proximity to each other by promoting within the 
Chinese armed forces patterns of behavior that favor safety and 
adherence to international norms.
    Question. In your view, is there the potential for similar 
dangerous incidents with China to occur at sea or elsewhere?
    Answer. This could happen again. Aggressive navigational practices 
by Chinese vessels and aircraft cause concern for the safety of air and 
maritime forces operating in proximity of each other. If confirmed, I 
would continue efforts already underway to send a clear and consistent 
message to China that such aggressive practices are dangerous and that 
China should respect the freedoms and rights guaranteed to all states 
under international law for the use of sea and airspace.
    Question. If confirmed, what policy direction, if any, would you 
recommend to the Commander of the U.S. Pacific Command to prevent such 
incidents?
    Answer. It is essential that all Department of Defense components, 
including U.S. Pacific Command, continue to conduct crisis management 
training to ensure communication and coordination mechanisms are in 
place. We will continue to use the Military Maritime Consultative 
Agreement to stress the importance of maritime safety with China. We 
have also engaged in what I call ``fire drill'' training in OSD in 
order to better cope with such an EP-3 type incident should it occur 
again.

                     CHINA--MILITARY MODERNIZATION

    Question. China's economy is growing by as much as 10 percent per 
year, and China is using that economic growth to fund a substantial 
military modernization.
    In your view, what is China's intent in pursuing such a rapid 
military modernization?
    Answer. I am deeply concerned about China's military buildup--I 
prefer ``build-up'' to the term ``modernization.'' China's publicly 
announced defense budgets continue to grow at rates that exceed growth 
of the overall economy, reaching over $46 billion in 2007. Actual 
expenditures in 2007 could be as much as $85 billion to $125 billion. 
China continues to invest heavily in strategic weapons, power 
projection, area denial, and asymmetric warfare. China appears focused 
in the near-term on generating capabilities for potential Taiwan 
contingencies, including those that would involve U.S. intervention. 
Over the long-term, China's military buildup suggests it is building 
capabilities to deal with a broader variety of contingencies in the 
region. We have very limited insight into China's intent behind this 
build-up of capability.

                       CHINA--ANTI-SATELLITE TEST

    Question. On January 11, 2007, China used a ground-based missile to 
hit and destroy one of its weather satellites in an anti-satellite test 
creating considerable space debris and raising serious concerns in the 
international community.
    What is your view of China's purpose in conducting this test?
    Answer. We do not know what China's purpose was in conducting this 
test. In the absence of explanations by the PLA or the Government of 
China, we must view the January 2007 ASAT test in the context of 
China's broader military build-up, which includes enhanced capabilities 
for anti-access and area denial. This could be part of a strategy to 
develop a full range of ASAT capabilities, including ground-based 
lasers and jammers.
    Question. What do you see as the implications of this test for the 
U.S. military, for U.S. national security, and for U.S. interests in 
space?
    Answer. If deployed, China's direct-ascent ASAT could hold U.S. 
satellites in low earth orbit at risk and eventually satellites in 
higher orbits, including the Global Positioning System and other 
warning systems. The test was inconsistent with the spirit of 
cooperation in space exploration and raises concerns about the 
credibility of China's declaratory statements against the weaponization 
of space. The United States reserves the right to defend and protect 
its space systems. A broad range of diplomatic and military options are 
required to meet the challenges posed by China's counterspace 
capabilities--including its ASAT systems.
    Question. What are your views regarding the potential weaponization 
of space?
    Answer. I support U.S. longstanding national policies of supporting 
the right of all nations to use outer space for peaceful purposes, the 
right of free passage through space, and the right to prevent those 
that would do us harm from using space for hostile purposes.

            U.S.-CHINA PROPOSED DIALOGUE ON NUCLEAR WEAPONS

    Question. A delegation led by USD(P) Edelman proposed in recent 
talks with officers of China's People's Liberation Army to begin a 
``dialogue'' on nuclear weapons and strategy. According to Pentagon 
spokesmen, the Department has not defined the exact scope or desired 
objectives of such a dialogue.
    Do you believe such a dialogue can be carried out in a manner 
consistent with the requirements of section 1201 of the National 
Defense Authorization Act for Fiscal Year 2000, which prohibits any 
military-to-military exchange or contact with representatives of the 
People's Liberation Army of the People's Republic of China in 12 
specific areas including, specifically, nuclear operations?
    Answer. I believe that such a dialogue, if appropriately 
constructed and effectively managed, can--and must--remain within the 
statutory limitations on U.S.-China military-to-military exchanges, as 
provided for in section 1201 of the National Defense Authorization Act 
for Fiscal Year 2000.

                                 TAIWAN

    Question. What are the priorities, in your view, for U.S. military 
assistance to Taiwan?
    Answer. I believe priority areas include: hardening of critical 
infrastructure; ensuring increased munitions are available to counter 
the threat; and an advanced integrated air and missile defense. The 
United States and Taiwan will continue to work together to review 
defensive needs considering the current and projected PRC threat.
    Question. What is your view of the relationship between the type of 
assistance we offer Taiwan and regional stability?
    Answer. The United States is closely monitoring the shifting 
balance in the Taiwan Strait and Taiwan's defense needs, and we are 
well aware of the increasing capability of the PRC military. Regional 
stability depends on a strong Taiwan. Taiwan must be able to deter PRC 
coercion, and the best deterrent available to Taiwan is a strong 
defensive military.

                      REPUBLIC OF THE PHILIPPINES

    Question. What is your view of the current state of U.S.-
Philippines military-to-military relations?
    Answer. The Philippines is one of the United States' five treaty 
allies in East Asia and is a committed bilateral and regional partner 
in combating terrorism. Our alliance remains strong and the Philippines 
remains crucial to the United States and to regional stability in 
general. I believe our top two priorities with the Philippines are 
counterterrorism cooperation and defense reform.
    Question. What is your view of the effectiveness of the Special 
Operation Forces assistance being provided to the Philippines military 
in its fight against terrorist groups?
    Answer. The Philippines faces terrorist threats from Abu Sayyaf 
Group, Jemaah Islamiyah, and the Communist New People's Army. The Joint 
Special Operations Task Force is working effectively by, through, and 
with the armed forces of the Philippines to provide assistance in an 
indirect manner that is consistent with Philippine constitutional 
restrictions on foreign forces.
    Question. What policy guidelines, if any, would you establish, if 
confirmed, to ensure that U.S. personnel do not become involved in 
combat in the Republic of the Philippines?
    Answer. The established current policy guidelines are clear: the 
Mutual Defense Treaty and the Visiting Forces Agreement guide our 
bilateral policy with the Republic of Philippines. The Philippine 
constitution prevents foreign forces from conducting combat operations 
in the Philippines.

                               INDONESIA

    Question. Indonesia is a key Asian power, and is the largest Muslim 
country in the world. Consequently, it is important to build on 
opportunities to improve and expand U.S. relations with Indonesia where 
possible.
    What is your understanding of the extent to which the Indonesian 
Government is cooperating with the United States in the global war on 
terrorism?
    Answer. Although I would defer to Assistant Secretary of Defense 
for SO/LIC and Interdependent Capabilities on this question, I believe 
that the Government of Indonesia has cooperated closely and effectively 
with the United States and our allies in tracking and combating global 
terrorist networks in the region, particularly against the Jema'a 
Islamiyah wing of the jihadi threat.
    Question. Is it your understanding that the Indonesian Government 
is cooperating in the investigation into the murder of two American 
school teachers and one Indonesian school teacher in an ambush in Papua 
in August 2002?
    Answer. Yes. Secretary of State Rice reported to Congress in 
February 2005 that the Indonesian Government and Armed Forces were 
cooperating with the FBI's investigation into the Timika murders. In 
2006, suspects in the case turned themselves in to the FBI and were 
subsequently put on trial in Indonesia. The defendants were found 
guilty of the murders in November 2006, and the lead defendant was 
sentenced to death.
    Question. What is your view of the current state of military-to-
military contacts with Indonesia?
    Answer. Current military-to-military contacts with Indonesia are 
positive and expanding. If confirmed, I would work for the continued 
normalization of our defense relations with Indonesia. I believe that 
enhanced military contacts with the Indonesian military can help cement 
the recent progress we have seen on human rights, particularly in 
conflict areas such as Aceh and Papua, maritime security, and military 
reforms. I also appreciate Indonesia's contribution to peacekeeping 
operations--including Lebanon. Going forward, I would like to see our 
military-to-military contacts with Indonesia deepen through a series of 
regular, predictable exercises and engagements.
    Question. Do you favor increased U.S.-Indonesian military-to-
military contacts? If so, under what conditions? Why?
    Answer. If confirmed, I would support increased military-to-
military contacts, in close consultation with Congress and the 
Department of State.
    Question. What is your view of the commitment of the Indonesian 
military leadership to professionalization of its armed forces, 
adhering to human rights standards, improving military justice, and 
cooperating with law enforcement efforts to investigate and prosecute 
those military personnel accused of human rights abuses?
    Answer. The pace of military reform remains slow but steady. Some 
of the ``less difficult'' reforms--separation of the police from the 
military, eliminating formal political roles for the TNI, increasing 
accountability, and human rights training--have already taken place. 
The orderly TNI withdrawal from Aceh and progress on the planned 
divestiture of TNI businesses by the end of 2007 are evidence of 
ongoing reform. The 2002 Defense Law and the 2004 TNI Law formally 
codified the roles and responsibilities of the TNI as a mechanism to 
support, not replace, civilian government. Continued ``hard'' reforms 
that we must continue to push for include full accountability for past 
human rights abuses, strengthening civilian control, putting the TNI 
fully ``on budget'', and continued professionalization of the TNI 
officer corps.
    Question. If confirmed, what would you do to encourage respect for 
human rights and accountability in the Indonesian military?
    Answer. If confirmed, I would sustain our efforts of encouraging 
professionalism within the military in terms of both human rights 
respect and accountability, through bilateral security discussions, 
joint training, military assistance, and military training programs.

                                 INDIA

    Question. What is your view of the current state of the U.S.-India 
military-to-military relationship?
    Answer. The U.S.-India military-to-military relationship is 
positive and getting stronger, based on a perceived confluence of 
strategic interests on both sides. In the past 6 years, our defense 
ties have become increasingly robust, with frequent bilateral exchanges 
and dialogue, a slate of increasingly sophisticated annual military 
exercises, and potential for expanded defense trade. We anticipate that 
India will continue to promote security in the Indian Ocean region and 
beyond through its disaster response, maritime security, and 
peacekeeping efforts.
    Question. If confirmed, what specific priorities would you 
establish for this relationship?
    Answer. If confirmed, there are a number of areas I would like to 
build on in the relationship with India. First, we would like to work 
with India to strengthen our mutual capabilities to fight terrorism. 
Second, we would like to strengthen our maritime cooperation with 
India, to promote our mutual objectives in coping with disaster 
response, piracy, proliferation, terrorism, and energy security. The 
United States and India also have a common goal of ensuring the free 
flow of commerce through key sea lanes. The third priority should be to 
build our defense trade relationship with India. The United States is a 
new entrant into the Indian defense market and we see defense sales as 
a way to promote interoperability, promote people-to-people contacts, 
and strengthen the strategic relationship. Our fourth area of emphasis 
will be to deepen our already robust military-to-military relationship 
with more sophisticated exercises. Finally, we would like to move our 
cooperation forward on missile defense by engaging the Government of 
India in policy discussions and joint collaboration on technical 
projects.
    Question. What relationship, if any, do you believe exists between 
the armed groups conducting terrorist attacks in India, and the armed 
groups conducting attacks in Pakistan and Afghanistan?
    Answer. I believe these armed groups share some common objectives 
and ideology, as well as drawing from a similar (though not identical) 
pool of recruits and receiving support from similar (though not 
identical) sources.
    Question. What, in your view, is the effect, if any, of the fact 
that there is currently no civil nuclear cooperation agreement with 
India?
    Answer. It doesn't help our security relationship that the 
cooperation agreement appears currently stalled. But we do not believe 
that defense cooperation with India depends on the outcome of the civil 
nuclear agreement.

               INTERNATIONAL COORDINATOR FOR AFGHANISTAN

    Question. In September, NATO Secretary General Jaap de Hoop 
Scheffer urged that an ``international coordinator'' be appointed to 
oversee and coordinate the efforts of the international community in 
Afghanistan.
    Do you agree that there is a need for greater coordination of the 
efforts of the international community in Afghanistan?
    Answer. Yes, I agree that there is a need for greater coordination 
of the international community efforts in Afghanistan. Some 72 
countries and international organizations are currently working in 
Afghanistan to help the government and the Afghan people, so 
coordination is a challenge.
    Economic, governance, and security assistance must be thoroughly 
integrated and support the long-term national development strategy of 
the Government of Afghanistan.
    Question. Would you support the appointment of an international 
coordinator to oversee and coordinate these efforts?
    Answer. Yes; a senior international coordinator, if chosen 
properly, would be helpful in ensuring complementary efforts within the 
international community and that our efforts are supportive of the 
Afghan government. An international coordinator could play an important 
role in identifying requirements and raising awareness about the needs 
of Afghanistan.

                        SECURITY IN AFGHANISTAN

    Question. An August 2007 United Nations report found that the 
security situation in Afghanistan has ``deteriorated at a constant rate 
through 2007.'' At the same time, there continue to be shortfalls among 
NATO members in meeting the mission requirements for the International 
Security Assistance Force (ISAF) in Afghanistan, particularly in 
maneuver battalions, helicopters, and the operational mentoring and 
liaison teams for training the Afghanistan National Security Forces 
(ANSF).
    What is your assessment of the security situation in Afghanistan? 
Do you agree that the situation has deteriorated through 2007?
    Answer. The security situation in Afghanistan remains challenging. 
I am not sure that the overall security situation has deteriorated 
through 2007. It is not clear whether the increased number of violent 
incidents is due to a stronger insurgency, or more aggressive and 
comprehensive actions taken by the ANSF and ISAF.
    Still, ISAF and the Government of Afghanistan have been unable to 
hold some areas that they have cleared with military operations. 
Therefore, ISAF and more importantly the Government of Afghanistan have 
not capitalized consistently on initial successes by extending 
governance and delivering services that would transform the political 
environment and lead to long-term success. In the long run, the 
Government of Afghanistan must offer greater prospects for sustained 
security and livelihood than the insurgency; military operations are 
providing a window for expanded governance.
    Question. What do you believe can and should be done to induce ISAF 
countries to provide the additional forces, training teams, and 
equipment needed to meet mission requirements in Afghanistan?
    Answer. If confirmed, I would work with my colleagues in OSD/ISA to 
press ISAF and other coalition members to provide additional forces and 
equipment for Afghanistan. It is an exercise in persuasion: the 
legislatures and publics in ISAF contributing nations must be made 
aware of how victory in Afghanistan is a common, vital interest. 
Responsibility for this persuasion rests primarily with the Government 
of Afghanistan and by the governments of our coalition partners. We can 
play a supporting role. Secretary Gates made this point to our NATO 
allies in November at the Noordwijk Ministerial and again last week in 
Edinburgh.
    Question. Are there changes to our strategy in Afghanistan that you 
would recommend to improve the security situation?
    Answer. I believe we have the right strategy in Afghanistan for 
long-term success, focusing on enabling the government of Afghanistan 
to provide governance and security as the insurgency is put down. If 
confirmed, I would focus on the execution of this strategy, making sure 
that we and our ISAF allies and other international partners provide 
sufficient resources in a timely, appropriate, and coordinated manner.

                      AFGHANISTAN--RECONSTRUCTION

    Question. What is your assessment of the relationship between 
reconstruction and development in Afghanistan and achieving the U.S. 
objective of a stable, self-governing democratic Afghanistan?
    Answer. I believe that reconstruction and development are 
absolutely critical to achieving our strategic goals in Afghanistan. 
For Afghanistan to be stable and self-governing, it must attract the 
loyalty of its citizens by providing economic opportunity; to sustain 
its provision of core government services, especially the security 
services, the Government of Afghanistan needs tax revenues from a 
thriving economy.
    Since 2001, the U.S. Government as a whole has provided over $7.6 
billion in reconstruction and development assistance to Afghanistan. We 
will provide over $2.3 billion in fiscal year 2008. About 40 percent of 
this aid has been devoted to infrastructure projects, primarily roads, 
and power.

                    AFGHANISTAN--COUNTERDRUG EFFORTS

    Question. What is your assessment of international and U.S. 
counterdrug efforts in Afghanistan? Do you believe that NATO and the 
United States military are doing enough to help the Afghan government 
to tackle this problem? If not, what do you believe we should do?
    Answer. Overall poppy planting and opium production are way up in 
2007, about 193,000 hectares and 8,000 tons respectively according to 
UN estimates, despite counternarcotics efforts by the Government of 
Afghanistan and the international community. I believe the current 
five-pillared strategy for counternarcotics in Afghanistan 
(interdiction, eradication, public information, justice reform, and 
alternative development) is the right approach, when all of the pillars 
are implemented comprehensively. I agree with the conclusions of the 
August 2007 review of our counternarcotics strategy, which recommended 
that the United States should increase alternative development 
assistance and amplify the scope and intensity of interdiction and 
eradication operations; integrate drug interdiction operations into 
counterinsurgency (COIN) missions through a single planning and command 
and control structure; and develop greater political will for the 
counternarcotics effort among the Government of Afghanistan, allies, 
and international organizations.

                                PAKISTAN

    Question. Do you believe that the Government of Pakistan is doing 
enough to eliminate safe havens for the Taliban, al Qaeda, and other 
extremists in the FATAs?
    Answer. No; Pakistan can do more to eliminate these safe havens in 
the FATA, and we must help them build the COIN capacity and the 
sustained political will to do so. We should remember that Pakistan has 
deployed 100,000 troops in the FATA and Northwest Frontier Province, 
has suffered more than 1,000 combat deaths in support of OEF 
objectives, and has captured and turned over more senior Al Qaeda and 
Taliban operatives than any other coalition partner. That said, 
Pakistan should end the state of emergency as President Musharraf has 
promised and conduct free, fair, transparent, and credible national 
elections in January. As long as the attention of the Pakistan military 
is diverted by internal security duties in support of the state of 
emergency, it is less able to focus time and energy on rooting out 
terrorist safe havens in the western border region.
    Question. To what extent, if any, should U.S. military assistance 
to Pakistan be conditioned on the Government of Pakistan's progress in 
combating terrorism and on reinstating democratic government and 
abiding by democratic principles?
    Answer. I agree with former Secretary of Defense Perry who once 
observed that such conditionalities are a ``blunt instrument'' that do 
not increase our influence or leverage with Pakistan, and may reduce 
it. Legislating conditionality sends a message that is contrary to the 
long-term partnership that we have worked hard to communicate to the 
Pakistanis.
    Coalition support funds are not assistance, but a mechanism for 
reimbursements to a number of coalition countries for their actual 
logistical, military, and other expenses incurred in supporting U.S. 
military operations.
    Section 1206 authority is a vital tool that allows DOD and the 
Department of State to train and equip coalition partners for urgent 
missions. Using 1206 and other capacity building authorities to train 
and equip the Pakistan Army and Frontier Corps supports our strategy of 
rooting out safe havens for the Taliban and violent extremists.
    Foreign military financing (FMF) is also an important instrument in 
our bilateral relationship, one that is supportive of our 
counterterrorism objectives. FMF to Pakistan has supported its efforts 
to acquire weapons and equipment that have played a direct role in its 
efforts against Taliban and al Qaeda forces in the border region. FMF 
has also supported Pakistan's legitimate regional security 
requirements.
    International military education and training (IMET) allows mid-
level Pakistani officers to be exposed to U.S. military education and 
culture, as well as to form relationships with counterpart U.S. 
officers. With the role that the Pakistan Army plays in its society, 
such relationships are critical to maintaining an open line of 
communication at times of crisis. IMET contributes to abiding by 
democratic principles by exposing Pakistani military officers to U.S. 
professional military education, including service under civilian 
authority and the role of the military in a democracy.

   PRISONERS OF WAR (POW) /MISSING IN ACTION (MIA) ACCOUNTING EFFORTS

    Question. The Joint POW/MIA Accounting Command, U.S. Pacific 
Command, is critical to the recovery and identification of remains of 
missing military members. Recovery of remains of U.S. servicemembers 
from World War II, the Korean War, and the Vietnam war continue to be a 
very high priority. In 2005, DOD suspended U.S. cooperation with North 
Korea on recovery and identification of the remains of U.S. personnel, 
citing concern for the security of U.S. personnel in North Korea.
    In your view is there any reason why we should not now resume 
cooperation with North Korea to recover the remains of U.S. personnel?
    Answer. I agree that recovery of remains of our servicemembers is a 
high priority. I believe that resuming joint recovery operations in 
North Korea hinges principally on progress toward denuclearization and 
normalization. Once North Korea has met these conditions, DOD would 
need to work with North Korea to ensure the security of our recovery 
personnel, gain access to sites that are of interest, and agree on 
appropriate costs of DPRK operations.
    Question. If confirmed, what steps, if any, would you take to 
enhance POW/MIA recovery efforts in the AOR of the U.S. Pacific 
Command?
    Answer. If confirmed, I would seek to reinforce the DOD commitment 
to investigating, recovering, repatriating, and identifying the remains 
of missing Americans from all conflicts in all theaters of operations 
in Asia.
    Question. If confirmed, what steps would you take, if any, 
specifically with regard to recovery efforts in North Korea?
    Answer. If confirmed, I will work closely with senior leadership 
within DOD, the Department of State, and other U.S. Government 
departments to support every reasonable effort to resume operations 
once the DPRK has established acceptable conditions.

                        FOREIGN LANGUAGE POLICY

    Question. In February 2005, Deputy Secretary of Defense Paul 
Wolfowitz approved the Defense Language Transformation Roadmap to 
improve the Department's foreign language capability and regional area 
expertise. Since then, the Department has been working toward 
implementing that roadmap.
    To your knowledge, how many Mandarin and/or Cantonese speakers does 
DOD have in intelligence analyst positions? Is this number sufficient 
to ensure good intelligence assessments for use by the Office of Asian 
and Pacific Security Affairs?
    Answer. I have been told that information regarding the number of 
DOD intelligence analysts who speak Mandarin and/or Cantonese is 
classified; however, DOD is able to provide this information to 
Congress in a classified forum. At the unclassified level, I can tell 
you that there are over 5,800 military personnel (officers and 
enlisted) with at least a basic capability in Mandarin and/or 
Cantonese. Of those, over 1,000 are considered proficient in Mandarin. 
I would like to see these numbers grow by increasing our investment in 
Chinese language skills for both civilians and military personnel.
    Question. In your view, how should the Federal Government expand 
the foreign language skills of civilian and military personnel in order 
to improve the quality of intelligence input to, and policy output by, 
the Office of Asian and Pacific Security Affairs?
    Answer. If confirmed, I would strongly support all efforts by the 
Federal Government to expand the language skills of both civilian and 
military personnel, including expanded language training, better use of 
``legacy'' speakers, and higher expectations of language competency in 
key foreign assignments. As a Japanese speaker myself, I know how many 
years it takes to become competent in ``hard'' languages. Countries in 
the APSA AOR use 7 of the DOD ``top 10 strategic languages,'' including 
Chinese, Korean, Russian, Hindi, Indonesian, Dari, Japanese, and 
Arabic. Within the DOD, we should encourage our Service Academies and 
ROTC students to learn languages. We should also continue the process 
of inventorying both civilian and military legacy speakers. I support 
the idea of expanding financial incentives for civilians and military 
personnel to learn and maintain their language skills. DOD's Foreign 
Language Proficiency Pay for civilians and Foreign Language Proficiency 
Bonuses for military personnel are a step in the right direction.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as ASD(APSA)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

                                 CHINA

    1. Senator Levin. Dr. Shinn, in your answers to pre-hearing policy 
questions, you wrote, ``China's military buildup may be tipping the 
stability balance in the Taiwan Strait and poses an unknown risk to the 
region at large.'' Why do we not know ``for sure'' whether China is 
tipping the balance?
    Dr. Shinn. China's People's Liberation Army (PLA) is embarked on an 
ambitious, long-term military buildup. The Department of Defense Annual 
Report to Congress on Military Power of the People's Republic of China 
has documented these changes and has found that the military balance 
across the Taiwan Strait has been shifting in the mainland's favor. At 
the same time, Taiwan can still take steps to mitigate and even reverse 
this trend. Although the United States has a fairly clear understanding 
of China's growing capabilities, the lack of transparency surrounding 
the PLA's buildup has left it to the United States to infer China's 
intent. Without knowing China's intent, we cannot be sure whether China 
will use its growing military capability to alter the balance in the 
region.

    2. Senator Levin. Dr. Shinn, what do we need in terms of 
intelligence or information in order to be able to know this?
    Dr. Shinn. An accurate assessment of the military balance in the 
Taiwan Strait depends on our ability to assess the current and 
projected future military capabilities of both China and Taiwan. With 
respect to Taiwan, I believe the United States through the American 
Institute in Taiwan should continue to work with the Taiwan Armed 
Forces so that we have a common understanding of Taiwan's defense needs 
and the strategies and resources required to provide for them. With 
respect to mainland China, where the lack of transparency is a problem, 
we should seek to clarify China's military and security strategies as 
well as its approach to the use of force.

    3. Senator Levin. Dr. Shinn, what do you mean by an ``unknown 
risk?''
    Dr. Shinn. The degree of risk is a function of both the impact and 
probability of China's military buildup. Regarding impact, China's 
military buildup is increasing Beijing's options for military coercion, 
press diplomatic advantage, advance interests, or resolve disputes. 
Regarding probability, the lack of transparency surrounding China's 
buildup leads us to question China's intent.

    4. Senator Levin. Dr. Shinn, is the possibility of ``unknown risk'' 
as great as the possibility of no ``unknown risk?''
    Dr. Shinn. The U.S. Department of Defense has a fairly 
sophisticated understanding of China's growing military capabilities, 
but we lack insight into China's intent because China's military 
buildup is occurring in the absence of transparency. Without greater 
transparency, the United States and other Asian nations cannot fully 
determine the degree and type of risk that China's buildup poses.

                  CHINA--MILITARY-TO-MILITARY CONTACTS

    5. Senator Levin. Dr. Shinn, what is your opinion regarding the 
utility of military-to-military cooperation with China?
    Dr. Shinn. I believe that military-to-military exchanges between 
the United States and China can provide useful forums for our two 
countries to share views. All exchanges must be consistent with the 
congressional guidelines articulated in Section 1201 of the National 
Defense Authorization Act for Fiscal Year 2000 (Public Law 106-05).

    6. Senator Levin. Dr. Shinn, if confirmed, would you maintain or 
continue to increase ties with them as a means of fostering 
transparency and potentially gaining leverage over their actions?
    Dr. Shinn. I believe the future level and frequency of U.S.-China 
military-to-military contacts should depend on whether the PLA improves 
the transparency and reciprocity of our exchanges. If confirmed, I 
would support increasing those exchanges that improve air and maritime 
safety, as well as those that encourage China to act responsibly on the 
regional and global scene. I would ensure that all contacts are 
consistent with the guidelines found in section 1201 of the National 
Defense Authorization Act for Fiscal Year 2000 (Public Law 106-05).

    7. Senator Levin. Dr. Shinn, how can we use our engagement with 
China to ensure that our ships--especially those in duress--are given 
safe haven, and that we have predictability when dealing with the 
Chinese government?
    Dr. Shinn. I believe that senior U.S. officials should continue to 
raise the issue of maritime safety during meetings with Chinese 
counterparts. I agree with the Commander, U.S. Pacific Command, Admiral 
Tim Keating, who has expressed his strong dissatisfaction with China's 
decision to deny safe harbor to U.S. vessels seeking shelter during a 
storm.

                         CHINESE ANTISATELLITE

    8. Senator Levin. Dr. Shinn, in your answers to pre-hearing 
questions dealing with China's test in January of an antisatellite 
(ASAT) capability, you indicate that ``a broad range of diplomatic and 
military options are required to meet the challenges posed by China's 
counterspace capabilities--including its ASAT system.'' Would you 
support starting an international dialogue on space rules of the road 
as part of the diplomatic options? If not, what diplomatic options 
would you support?
    Dr. Shinn. On matters of space policy, I would defer to the Deputy 
Assistant Secretary of Defense for Strategic Capabilities, who advises 
the Assistant Secretary of Defense for SO/LIC and Interdependent 
Capabilities, the Under Secretary of Defense for Policy, and the 
Secretary of Defense on these matters. If confirmed, I would support 
both bilateral and multilateral diplomatic initiatives to promote the 
safe and responsible use of space, consistent with our national space 
policy.

    9. Senator Levin. Dr. Shinn, what military options do you envision 
as needed to meet Chinese counterspace capabilities?
    Dr. Shinn. I believe that the Office of the Deputy Assistant 
Secretary of Defense for Strategic Capabilities is in the best position 
to elaborate on military options regarding U.S. national space policy. 
I understand that our space policy is designed to ensure the United 
States retains the ability to deny an adversary access to space 
capabilities that it can use for purposes hostile to U.S. national 
interests.

                          AFGHANISTAN-PAKISTAN

    10. Senator Levin. Dr. Shinn, do you believe that Secretary Gates 
will continue to put pressure on the North Atlantic Treaty Organization 
(NATO) allies to send more troops and equipment, and to eliminate the 
restrictions on their employment?
    Dr. Shinn. Yes. As Secretary Gates has said, it is a continuing 
effort to get our NATO allies to increase their contributions to 
coalition efforts in Afghanistan. I believe this is an exercise in 
persuasion and that the Secretary will continue to press on both of 
these points. The Combined Joint Statement of Requirements for forces 
and equipment in Afghanistan still has shortfalls, and meeting these 
shortfalls demands greater contributions from all NATO members. For 
example, Operational Mentoring and Liaison Teams are critical to 
building an effective Afghan National Army. There is a growing need for 
more of these teams. Additionally, we cannot have a two-tier NATO 
alliance--those who fight and those who do not. The Secretary strongly 
believes, as do I, that countries offering resources to NATO operations 
should give the International Security Assistance Force (ISAF) 
Commander the flexibility to use those resources as he deems necessary 
to accomplish the mission most effectively. Geographic and operational 
limitations on employment of forces minimize the ISAF Commander's 
ability to shape operations in Afghanistan.

    11. Senator Levin. Dr. Shinn, do you believe that the Government of 
Pakistan is doing enough to eliminate safe havens for terrorists in 
Pakistan?
    Dr. Shinn. No, I believe Pakistan can and should do more to 
eliminate safe havens for terrorists in the Federally Administered 
Tribal Area (FATA) of Pakistan. At the same time, we should remember 
that Pakistan has deployed 100,000 troops in the FATA and Northwest 
Frontier Province, has suffered more than 1,000 combat deaths in 
support of Operation Enduring Freedom objectives, and has captured and 
turned over more senior al Qaeda and Taliban operatives than any other 
coalition partner. If confirmed, I would support efforts to help 
Pakistan improve the counterinsurgency capability of the Pakistan Army 
and paramilitary forces by providing more training, equipment, and 
shared intelligence.

    12. Senator Levin. Dr. Shinn, do you believe that we can just 
keeping doing what we are doing right now?
    Dr. Shinn. In Afghanistan, I believe that we have the right 
strategy for long-term success, but we need to improve our execution. I 
support an Afghanistan strategy that focuses on strengthening the 
government, improving security, countering narcotics, and supporting 
reconstruction and economic development. If confirmed, I would strive 
to improve our implementation in Afghanistan by encouraging our 
international allies to do more, pressing to eliminate caveats on 
employing forces already deployed, and supporting the appointment of a 
senior envoy who will work to improve coordination of reconstruction 
and development efforts.
    In Pakistan, we also need to make more progress. We are in the 
early stages of a 5-year, multi-phase plan to improve the 
counterinsurgency capability of the Pakistan Army and the paramilitary 
Frontier Corps, which will make both much more effective in eliminating 
the terrorist safe havens in the FATA of Pakistan. If confirmed, I 
would support efforts to help Pakistani forces develop greater capacity 
through training and equipment assistance. I would also support 
programs to enhance Pakistan's counterinsurgency capabilities.

    13. Senator Levin. Dr. Shinn, if confirmed, what if any, additional 
changes would you advocate to deal with the Afghan-Pakistan terrorism 
issue?
    Dr. Shinn. I agree with Assistant Secretary of Defense for SO/LIC 
and Interdependent Capabilities (ASD/SO/LIC&IC) Mike Vickers, who has 
advocated working closely with Pakistan and Afghanistan to strengthen 
existing mechanisms for intelligence-sharing, military-to-military 
dialogue and political discourse, and support to Pakistan's efforts to 
eliminate terrorist sanctuaries in the FATA. If confirmed, I would work 
closely with the ASD/SO/LIC&IC to ensure that U.S. defense policy--
including our training and equipping initiatives--supports our 
counterterrorism objectives for both Afghanistan and Pakistan.

                              PHILIPPINES

    14. Senator Levin. Dr. Shinn, if confirmed, what will you do to 
ensure that the likelihood of U.S. servicemembers being involved in 
combat in the Philippines remains low?
    Dr. Shinn. The legal and policy guidelines are clear on the issue 
of avoiding the involvement of U.S. forces in combat operations in the 
Philippines. The Philippine Constitution prevents foreign forces from 
conducting combat operations in the Philippines. The United States must 
respect Philippine sovereignty and will not violate Philippine Law. The 
Mutual Defense Treaty and the Visiting Forces Agreement guide our 
bilateral policy with the Republic of Philippines. DOD has also 
promulgated Rules of Engagement (ROE) for deployed U.S. forces that 
outlines the limited circumstances under which deadly force may be 
used. If confirmed, I would work to ensure we adhere to these 
guidelines.

    15. Senator Levin. Dr. Shinn, will you inform the committee in 
advance of any changes in the nature and scope of U.S. military 
assistance to the Philippines?
    Dr. Shinn. Yes, I will keep Congress informed regarding significant 
changes in the nature and scope of U.S. forces that are advising and 
assisting the Armed Forces of the Philippines. Further, I will consult 
closely with Congress on all matters related to U.S. military 
assistance to the Philippines. Congress plays a key role by 
appropriating grant assistance, especially International Military 
Education and Training (IMET) funds and Foreign Military Financing 
(FMF) funds. The IMET and FMF programs in the Philippines are critical 
components of the integrated approach we are taking to build capacity 
in the Armed Forces of the Philippines (AFP).

                                 KOREA

    16. Senator Levin. Dr. Shinn, what is your view on the best 
approach to the threat posed by North Korea?
    Dr. Shinn. I support the current U.S. strategy for North Korea, 
which is centered on maintaining peace through deterrence while 
pursuing diplomacy to achieve denuclearization of the North. With 
regards to deterrence, the U.S. alliances with both the Republic of 
Korea (ROK) and Japan remain strong. Regarding diplomacy, the United 
States is working closely with our allies, our Six-Party Talks 
partners, and the international community to urge North Korea to 
fulfill its commitments as reflected in the September 19, 2005, joint 
statement. Going forward, we must judge the intent of North Korea by 
its actions, especially its nuclear denuclearization. If confirmed, I 
would work with the Department of State and regional partners to press 
North Korea to meet its commitments while maintaining the capability to 
deter potential North Korea military threats and countering 
proliferation activities.

    17. Senator Levin. Dr. Shinn, do you believe that our current 
diplomatic approach will succeed in denuclearizing the Korean 
peninsula?
    Dr. Shinn. I agree with the assessment of President Bush and 
Secretary Rice that the Six-Party Talks have delivered measurable 
results, but that much hard work still remains. The disabling of the 
plutonium production facilities at Yongbyon is an important step, but 
North Korea must still fulfill all of the commitments it made in the 
September 2005 Joint Statement. I believe the next important step is 
for North Korea to provide a complete and correct declaration that 
includes all of its nuclear programs, including its nuclear weapons 
programs and nuclear weapons, and proliferation activities.

                 NORTH KOREA--POW/MIA RECOVERY EFFORTS

    18. Senator Levin. Dr. Shinn, in 2005 Secretary Rumsfeld suddenly 
ceased cooperation with North Korea on recovery and identification of 
U.S. servicemembers. Up until that point, recovery efforts were 
continuing, regardless of the breakdown in relations on the nuclear and 
missile issues.
    Your answers to pre-hearing policy questions state that ``resuming 
joint recovery operations in North Korea hinges principally on progress 
toward denuclearization and normalization.'' This implies that you 
would continue to link the POW-MIA efforts politically with other 
issues. Yet, Ambassador Charles Ray, the Deputy Assistant Secretary 
responsible for POW-MIA recovery, told committee staff that he didn't 
want the recovery efforts politicized. Is there any way that you can 
foresee that we might resume recovery efforts with North Korea, 
independent of what might happen in the Six-Party Talks?
    Dr. Shinn. I agree with Ambassador Ray that we should not 
politicize our POW/MIA recovery efforts in North Korea. Ambassador Ray 
and I also agree that denuclearizing the Korean peninsula is not a 
political issue, but rather it is a security issue. Once the United 
States has seen sufficient verifiable progress towards 
denuclearization, we should consider resuming recovery operations. If 
confirmed, I would work with Ambassador Ray to seek to resume recovery 
operations once North Korea meets its obligations. The next step in 
this process is for North Korea to declare all its nuclear programs 
completely and accurately. We would also need to ensure that conditions 
for recovery operations in North Korea limit the risk posed to U.S. 
personnel and advance Korean War personnel accounting.

                                 JAPAN

    19. Senator Levin. Dr. Shinn, how reliable an ally is Japan?
    Dr. Shinn. Japan is a reliable ally, and we are strengthening our 
alliance further through ongoing transformation efforts. Although there 
have been some disappointments, such as the temporary termination of 
at-sea-refueling in support of Operation Enduring Freedom, the overall 
trend in the security relationship has been very positive. If 
confirmed, I would encourage Japan to further its contribution to the 
alliance by expanding the role and missions of its Self-Defense Force.

    20. Senator Levin. Dr. Shinn, if confirmed, will you work to get 
the Japanese to contribute more forces in Afghanistan--a Provincial 
Reconstruction Team (PRT) for example?
    Dr. Shinn. If confirmed, I would continue working toward that end. 
A key objective of U.S. policy is to encourage Japan to increase both 
its security and development-related contributions to Afghanistan. 
Although I recognize Japan's contributions, and that Japan has certain 
constitutional and policy limitations, I believe that Japan has 
tremendous capability to do more in Afghanistan--whether by means of 
reconstruction assistance or by providing military capability, 
mentoring, or civilian expertise in the PRTs. If confirmed, I would 
continue to convey Afghanistan's needs to Japan.

                             INDIA-PAKISTAN

    21. Senator Levin. Dr. Shinn, what impact do you believe the 
failure to establish a U.S.-India civilian nuclear cooperation 
agreement would have on relations between India and Pakistan?
    Dr. Shinn. I do not believe that the U.S.-India civilian nuclear 
cooperation agreement has had a significant impact on Indo-Pakistani 
relations. I am encouraged on other fronts--such as the ongoing 
Composite Dialogue between India and Pakistan--and am hopeful that this 
dialogue will lead to improved relations between the two countries.

    22. Senator Levin. Dr. Shinn, if confirmed, what, if anything, 
would you do to foster good Indo-Pakistani relations to bring stability 
to Afghanistan?
    Dr. Shinn. I agree with Secretary Gates, who has called for all 
Asian countries--including India and Pakistan--to play a larger role in 
promoting Afghanistan's reconstruction and development. If confirmed, I 
would also advocate the continuation of ongoing confidence building 
measures between India and Pakistan as a means of promoting regional 
stability. I would encourage India to be transparent in its efforts to 
mitigate Pakistani concerns. I also view the Pakistani redeployment of 
certain forces from the Indian border to the FATA as a positive step.

                               INDONESIA

    23. Senator Levin. Dr. Shinn, in your written answers to pre-
hearing questions, you advocate increased military-to-military 
cooperation with Indonesia. If confirmed, will you ensure that 
Indonesians are cooperating to the fullest extent possible with us in 
the investigation of the 2002 murder of Americans in Papua, and that we 
do not work with units or individuals involved in past human rights 
violations?
    Dr. Shinn. Secretary of State Rice reported to Congress in February 
2005 that the Indonesian Government and Armed Forces were cooperating 
fully with the FBI's investigation into the 2002 murder of Americans in 
Papua. In 2006, suspects in the case turned themselves in to agents of 
the U.S. Federal Bureau of Investigation and were subsequently put on 
trial in Indonesia. The defendants were found guilty of the murders in 
November 2006, and the lead defendant was sentenced to death.
    In accordance with U.S. laws, all foreign security force personnel 
and units receiving U.S. military training and assistance are vetted 
for credible allegations of involvement in past gross violations of 
human rights. Known human rights violators are not provided such 
training. In the past 3 years, we have denied more than 120 Indonesian 
applications for training after finding allegations of past human 
rights abuses. In implementing our military-to-military programs, I 
will ensure we continue to comply with applicable laws.

                             PROLIFERATION

    24. Senator Levin. Dr. Shinn, in your answers to our pre-hearing 
policy questions you mention proliferation prevention programs as 
important to many of the problems in the region. In the National 
Defense Authorization Act for Fiscal Year 2008, new authority is 
provided to the Cooperative Threat Reduction (CTR) program to expand 
programs outside of the former Soviet Union. Do you see areas of 
opportunity for the CTR program in your area of responsibility?
    Dr. Shinn. I am familiar with the success story of Kazakhstan, 
which became a non-nuclear weapons state in 1995 with the assistance of 
the CTR program. I have also been briefed on some of the other CTR 
programs the Defense Threat Reduction Agency operates. If confirmed, I 
would work with the Office of the Assistant Secretary of Defense for 
Global Security Affairs (OASD/GSA) to identify and advocate possible 
uses of this new authority within the rest of the Asian and the Pacific 
area of responsibility.

    25. Senator Levin. Dr. Shinn, how would you work with the CTR 
program office in developing such programs?
    Dr. Shinn. If confirmed, I would work with the OASD/GSA to develop 
a prioritized list of Asian and Pacific countries that might benefit 
from the new congressional authority. Once we have identified and 
developed specific programs, I would support OASD/GSA throughout the 
process of advocating and implementing the programs with the individual 
Asian and Pacific countries.
                                 ______
                                 
               Questions Submitted by Senator John McCain

                                PAKISTAN

    26. Senator McCain. Dr. Shinn, Pakistan is a country of tremendous 
importance to our strategic interests currently undergoing severe 
political instability. The Taliban continue to operate out of the 
border area and pose a continuing threat to Afghanistan's security and 
stability. Extremists also pose a threat internal to Pakistan, and this 
is particularly troubling in light of Pakistan's nuclear weapons 
program. In retrospect, do you believe U.S. policy toward Pakistan has 
been too focused and dependent on the current leader of Pakistan?
    Dr. Shinn. I believe the shared interests of the United States and 
Pakistan transcend the personality of any particular leader. As 
President Bush has said, the United States and Pakistan have a shared 
interest in building stable and sustainable democracy and in promoting 
peace and security, stability, prosperity, and democracy in South Asia 
and across the globe. Our relationship is with the people and 
government of Pakistan, not with President Musharraf or any other 
particular leader that may follow him in the future. Now that President 
Musharraf has stepped down as Chief of Army Staff, we expect to have a 
similarly close relationship with his successor in that position, 
General Ashfaq Kiyani. As Pakistan prepares to conduct a general 
election, I share the hope of Assistant Secretary of State Richard 
Boucher that upcoming parliamentary elections in Pakistan will lead to 
the formation of a civilian-led government, under a civilian president 
for the first time since 1999.

    27. Senator McCain. Dr. Shinn, what is the United States doing to 
enhance its military cooperation with Pakistan and to ensure that the 
U.S.-Pakistan relationship will remain strong even if there is a change 
in leadership there?
    Dr. Shinn. The U.S.-Pakistan defense relationship is more robust 
now than at any time in the past. As Assistant Secretary of State 
Richard Boucher recently testified, since 2002 the United States has 
provided security assistance to Pakistan totaling $1.9 billion. From 
the DOD, this has included $1.2 billion in Foreign Military Financing, 
$87 million in counter-narcotics funding, and $37.2 million in Section 
1206 counterterrorism funding. In addition, we have provided $5.3 
billion in Coalition Support Funds to reimburse Pakistan for expenses 
incurred in the war on terror. One way we can help sustain our defense 
cooperation in the face of potential leadership changes is through our 
military-to-military interactions. Today, more than 100 Pakistani 
students annually attend military courses in U.S. professional military 
educational institutions, and an additional 50 or more attend courses 
conducted under the Counterterrorism Fellowship program. If confirmed, 
I would work with my counterparts at the Department of State and with 
Congress to ensure that we maintain this momentum and sustain our 
military cooperation with Pakistan.
                                 ______
                                 
               Questions Submitted by Senator John Thune

             NORTH KOREA-BALLISTIC MISSILE DEFENSE PROGRAMS

    28. Senator Thune. Dr. Shinn, last year during the Pacific Command-
U.S. Forces Korea status hearing I questioned General Bell, commander 
of U.S. Forces in Korea, about his testimony in which he requested that 
Congress fully fund the Airborne Laser (ABL) program. To me, General 
Bell's testimony carries a great deal of credibility because his troops 
face a real ballistic missile threat on a daily basis. General Bell 
described a situation where the ABL is important because it is designed 
to kill ballistic missiles in the boost phase. A terminal intercept, 
General Bell explained, could have consequences because of the fallout 
associated with intercepting a missile over a small, densely populated 
area like South Korea or Japan. He further stressed his point by 
pointing out that the July 4, 2006 missile test by North Korea resulted 
in six successful ballistic launches and one failure. What is your 
current understanding of North Korea's ballistic missile program and 
the threat it poses to the Pacific theater?
    Dr. Shinn. I would defer to the Missile Defense Agency to assess 
the technical merits of specific missile defense systems or programs. 
However, if confirmed, I would encourage U.S. friends and allies to 
expand their cooperation with the United States to improve our Asian 
missile defense architecture.

    29. Senator Thune. Dr. Shinn, do you share General Bell's 
conclusion that Congress needs to continue funding and supporting boost 
phase ballistic missile programs?
    Dr. Shinn. If confirmed, I would actively advocate expanding our 
ballistic missile defense (BMD) cooperation with U.S. allies and 
friends in Asia and the Pacific. The threat of ballistic missiles 
continues to grow, and the participation by our Asian partners in 
cooperative missile defense efforts reduces the costs to the United 
States and allows our partners to contribute technology and 
capabilities that are difficult for the United States to achieve by 
itself. Some nations can contribute powerful land-based radars. Others 
can provide additional sea-based missile capabilities. Others can 
provide technology to support the production process.
    Japan is the United States' most significant international partner 
for BMD. Both nations remain deeply committed to strengthening BMD 
cooperation. Significant recent developments include the U.S. 
deployment of a forward-based missile defense radar in northern Japan, 
the deployment of multiple BMD-capable Aegis ships, and the deployment 
of a PAC-3 battalion in Okinawa. Japan accelerated plans to modify four 
Aegis destroyers equipped with SM-3 interceptors. The first of these 
Aegis ships successfully completed its first SM-3 flight test in 
December 2007. Japan is also upgrading its Patriot system to PAC-3 
capability, and has already fielded its first upgraded fire unit. Japan 
and the United States are engaged in a number of cooperative efforts on 
BMD, including the development of the SM-3 Blk II interceptor.
    If confirmed, I would work with our Japanese allies to strengthen 
our operational cooperation and coordination. Alliance BMD capabilities 
contribute to the alliance's overall deterrence posture, and it is 
important that U.S. and Japanese systems can operate together 
effectively.

    30. Senator Thune. Dr. Shinn, if confirmed, what steps will you 
take to work with our allies, specifically Japan, in addressing the 
ballistic missile threat in the Asian theater?
    Dr. Shinn. I would defer to the Missile Defense Agency to assess 
the technical merits of specific missile defense systems or programs. 
However, if confirmed, I would encourage U.S. friends and allies to 
expand their cooperation with the United States to improve our Asian 
missile defense architecture.

    31. Senator Thune. Dr. Shinn, if confirmed, will you support direct 
energy technology as a method for intercepting ballistic missiles in 
the boost phase?
    Dr. Shinn. I would defer to the Missile Defense Agency to assess 
the technical merits of specific missile defense systems or programs. 
However, if confirmed, I would encourage U.S. friends and allies to 
expand their cooperation with the United States to improve our Asian 
missile defense architecture.
                                 ______
                                 
    [The nomination reference of James Shinn follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  October 23, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    James Shinn, of New Jersey, to be an Assistant Secretary of 
Defense. (New position.)
                                 ______
                                 
    [The biographical sketch of James Shinn, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                 Biographical Sketch of James J. Shinn

                           CURRENT ASSIGNMENT

    As the Principal Deputy Assistant Secretary of Defense for Asian 
and Pacific Security Affairs in the Office of the Under Secretary of 
Defense for Policy (USD(P)), Mr. Shinn is the civilian advisor to the 
USD(P) and the Secretary of Defense on national security matters in the 
Asian and Pacific region. He is responsible for developing regional 
security and defense strategy; formulating and coordinating regional 
defense policies in support of the Secretary's objectives; overseeing 
operational execution of the Secretary's approved policies for the 
region; and fostering bilateral and multilateral defense and military 
relationships in the region. Mr. Shinn is the focal point for Secretary 
of Defense policies of interest within the Office of the USD(P) and 
with the DOD components and the interagency for United States Pacific 
Command, United States Central Command, and for the Asia-Pacific Center 
for Security Studies. Mr. Shinn also represents the USD(P) and the 
Secretary of Defense in interagency policy deliberations and 
international negotiations related to the Asian and Pacific region.

                            PAST EXPERIENCE

    Before coming to the Pentagon, James Shinn was the National 
Intelligence Officer for East Asia on the National Intelligence 
Council, first at the Central Intelligence Agency and then the newly-
created Office of the Director of National Intelligence, from 2003-
2006. After working for Chase Manhattan Bank in New York and Tokyo, Mr. 
Shinn served in the East Asia Bureau of the U.S. Department of State 
from 1976-79. He then spent 15 years in high technology firms in 
Silicon Valley and Asia, first at Advanced Micro Devices, an integrated 
circuit firm, and at Dialogic, a voice processing software firm, which 
he co-founded. Dialogic did an initial public offering in 1992, and 
then was acquired by the Intel Corporation. After Dialogic, he worked 
with several high tech and financial services firms, as an investor and 
outside director. Mr. Shinn was the Senior Fellow for Asia at the 
Council on Foreign Relations in New York from 1993-96, where he wrote 
or edited several task force reports and two books, including Weaving 
the Net: Conditional Engagement With China (1996), and Fires Across the 
Water: Transnational Problems in Asia (1998), both published by the 
Council on Foreign Relations Press. From 2002 to 2003 he taught courses 
on technical innovation and technology and foreign policy, at Princeton 
University's Department of Electrical Engineering and the Woodrow 
Wilson School of Public Affairs, and at Georgetown University's School 
of Foreign Service. In 2002, he was nominated by the President and 
confirmed by the Senate as Public Delegate to the United Nations 
General Assembly. He co-authored with Peter Gourevitch, Political Power 
and Corporate Control: the New Global Politics of Corporate Governance, 
published by Princeton University Press (2005).

                          EDUCATION AND FAMILY

    Mr. Shinn has a BA from Princeton (1973), an MBA from Harvard 
(1981), and a Ph.D. from Princeton (2001). He once spoke good Japanese, 
passable French, and functional German, but no more. Mr. Shinn lives 
with his wife and three children in Washington, DC, and New York City.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by James Shinn in 
connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    James Joseph Shinn.

    2. Position to which nominated:
    Assistant Secretary of Defense, Asian and Pacific Security Affairs, 
Office of the Secretary of Defense.

    3. Date of nomination:
    October 23, 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    October 22, 1951; Mount Holly, NJ.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Masako Hashigami (Shinn).

    7. Names and ages of children:
    Alice, 7; Hiroshi, 15; Kiyoshi, 31.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Princeton University, 9/69-6/73, BA.
    Harvard University, 9/99-6/81, MBA.
    Princeton University, 9/97-6/01, Ph.D.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Principal Deputy Assistant Secretary, Asian and Pacific Security 
Affairs, Office of Secretary of Defense; Department of Defense; 
Washington DC; 02/07-present.
    National Intelligence Officer for East Asia, National Intelligence 
Council; Central Intelligence Agency and Office of Director of National 
Intelligence; Washington DC; 11/03-01/07.
    Visiting Professor, School of Foreign Service; Georgetown 
University; Washington DC; 8/02-12/06.
    (Adjunct after 11/03)
    Lecturer, Department of Electrical Engineering and Woodrow Wilson 
School; Princeton University; Princeton, NJ; 9/01-6/02.
    Ph.D. candidate, Woodrow Wilson School; Princeton University; 
Princeton, NJ; 09/97-06/01.
    Senior Fellow for Asia; Council on Foreign Relations; New York, NY; 
10/93-6/97.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Analyst, Bureau of East Asian Affairs; U.S. Department of State; 
Washington DC; 04/77-04/79.
    Public Delegate, General Assembly, U.S. Mission to the United 
Nations; U.S. Department of State; New York, NY; 09/02-05/03.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Princeton Brooke Foundation (501c non-profit charitable 
foundation); Trustee.
    Pacific Forum/CSIS (501c non-profit think tank); Advisory Board.
    Princeton Scholars in the Nation's Service (non-profit educational 
board); Advisory Board.
    Ophthalmology Department, Columbia University Hospital (non-profit 
medical research); Advisory Board (1998-2002).
    Council on Foreign Relations (non-profit think tank); Member.
    Harvard Club of New York; Member.
    Kenwood Country Club; Member.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Republican National Committee, 09/03, $25,000.
    Republican Leadership Council, 06/03, $25,000.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    None.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``Weaving the Net: Conditional Engagement with China''; CFR-
Brookings Press; 1996.
    ``Riding the Tigers: American Commercial Diplomacy in Asia'' (with 
Jeffrey Garten and Robert Zoellick); CFR-Brookings Press; 1998.
    ``The Strains of War and the Tests of Peace'' (with Harold Brown, 
Richard Armitage, and Bruce Stokes); CFR-Brookings Press; 1998.
    ``Fires Across the Water Transnational Problems in Asia''; CFR-
Brookings Press; 1998.
    ``How Shareholder Reforms Pay Foreign Policy Dividends'' (with 
Peter Gourevitch); CFR-Brookings Press; 2002.
    ``Red-Teaming the Data Gap'' (with Jan Lodal); CFR-Brookings Press; 
2002.
    ``Political Power and Corporate Control: The New Global Politics of 
Corporate Governance'' (with Peter Gourevitch); Princeton University 
Press; 2005.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    ``Tracking Asia's Black Swans'', remarks prepared for the 
International Institute of Strategic Studies conference on ``Managing 
Global Security and Risk,'' September 7-9, 2007.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    James J. Shinn.
    This 30th day of October, 2007.

    [The nomination of James Shinn was reported to the Senate 
by Chairman Levin on December 18, 2007, with the recommendation 
that the nomination be confirmed. The nomination was confirmed 
by the Senate on December 19, 2007.]
                              ----------                              

    [Prepared questions submitted to Craig W. Duehring by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. No, not at this time. We've just implemented the most 
dramatic change to Joint Officer Management in the Joint Qualification 
System (JQS) on October 2007, as a result of changes mandated by the 
John Warner National Defense Authorization Act for Fiscal Year 2007. 
However, we can address this issue again when the CNGR report is 
presented.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Truly believe these modifications are exactly what were 
needed to ensure that we adapt to how we fight today . . . and build 
the inventory we need to fight tomorrow. I support this new system 
fully.

                                 DUTIES

    Question. Section 8016 of title 10, U.S.C., provides that the 
Assistant Secretary of the Air Force for Manpower and Reserve Affairs 
shall have the principal duty of ``overall supervision of manpower and 
Reserve component affairs of the Department of the Air Force.''
    Assuming you are confirmed, what duties do you expect that 
Secretary Wynne will assign to you?
    Answer. The principle duties of the Assistant Secretary of the Air 
Force are to support the tasks assigned by the Secretary of the Air 
Force. These duties include providing guidance, direction, and 
oversight for Air Force military and civilian manpower/personnel 
programs; medical readiness and health care; plus Reserve component 
affairs. The Assistant Secretary is also responsible for oversight of 
the operation of the Air Force Personnel Council and its component 
boards--the Air Force Civilian Appellate Review Office and the Air 
Force Board for the Correction of Military Records.

                             RELATIONSHIPS

    Question. If confirmed, what will be your relationship with:
    The Secretary of the Air Force.
    Answer. As my direct supervisor, I will continue to meet with the 
Secretary of the Air Force on a regular and as required basis. I will 
provide him with my honest assessment and advice.
    Question. The Under Secretary of the Air Force.
    Answer. I will take direction from the Under Secretary of the Air 
Force in the absence of the Secretary. During other periods, I will 
work closely with him in areas of common interest.
    Question. The Under Secretary of Defense for Personnel and 
Readiness (PDASD/RA).
    Answer. I have already established an excellent working 
relationship with Dr. Chu and his entire staff. I am confident that I 
will be able to articulate Air Force interests and positions with all 
of them.
    Question. The Principal Deputy Under Secretary of Defense for 
Personnel and Readiness.
    Answer. In my earlier capacity as PDASD/RA, I established a 
relationship of mutual respect between myself and Mr. Dominguez. I 
expect that relationship to continue.
    Question. The General Counsel of the Air Force.
    Answer. The Air Force General Counsel has a significant role to 
play in virtually all policy decisions in the Air Force. In my capacity 
as acting ASAF/M&RA I have already established a strong relationship 
with the General Counsel and the members of her staff.
    Question. The Assistant Secretary of Defense for Reserve Affairs 
(ASD/RA).
    Answer. I performed the duties of the ASD/RA for 15 months during 
the opening days of this administration, to include the tumultuous 
events surrounding the attacks of September 11. Beginning in October 
2002, when the current ASD/RA was confirmed by the Senate and sworn in, 
I was his principal deputy and, as such, was very involved in every 
aspect of operations conducted by that office. To this day, we have 
retained both a personal and professional relationship which I believe 
can only enhance our mutual responsibilities to make certain that the 
members of the National Guard and Reserve components continue to 
receive the tools they need to protect our Nation.
    Question. The Assistant Secretary of Defense for Health Affairs.
    Answer. I have worked successfully with Dr. Casscells and his staff 
since the secretary was sworn in on a myriad of health issues, some of 
which have received much public and congressional attention as well as 
others that are less visible. All are important to our fighting men and 
women and their families. If I am confirmed, I look forward to working 
with the Assistant Secretary for Health Affairs to ensure that our 
servicemembers receive the best medical attention that this Nation can 
provide.
    Question. The Chief of Staff of the Air Force.
    Answer. The Chief of Staff of the Air Force, except as otherwise 
prescribed by law, performs his duties under the authority, direction, 
and control of the Secretary of the Air Force and is directly 
responsible to the Secretary. If confirmed, I would, as the senior 
civilian charged with policy decision for personnel and manpower areas 
under my authority, seek to work closely with the Chief of Staff to 
carry out the duties prescribed by the Secretary of the Air Force. In 
my present capacity I have an excellent working relationship with 
General Moseley.
    Question. The Deputy Chief of Staff of the Air Force for Personnel.
    Answer. Much of the day-to-day operations involving Air Force 
personnel are actually handled by the staff members of the DCS/
Personnel. As such the DCS/Personnel implements the policies approved 
by the Secretary of the Air Force. Recently, the Secretary of the Air 
Force signed a document that reinforced the role of the Assistant 
Secretary of the Air Force (M&RA) as being responsible for personnel 
and manpower policy decisions affecting our Air Force family and 
ensuring oversight of those policies. Confirmation by the Senate will 
complete that action.
    Question. The Surgeon General of the Air Force.
    Answer. The effects of the global war on terror highlighted the 
need for change in the medical support that our airmen receive. Beyond 
that, our efforts also directly affect the quality and timeliness of 
treatment that all of our brave servicemembers receive, especially when 
it involves the medevac system. If I am confirmed, I will continue to 
work closely with Lieutenant General Roudebush and his staff to meet 
the changing needs of our medical system.
    Question. The Chief, National Guard Bureau.
    Answer. I have known Lieutenant General Blum professionally for 
over 6\1/2\ years. We have traveled together numerous times in Europe, 
the southwest U.S.-Mexican border, and to numerous other locations 
throughout the country to gather information and make absolutely 
certain that our National Guard soldiers and airmen meet the 
requirements of their Governors and the missions that they have 
shouldered in title 10 and title 32 status. If I am confirmed, I will 
continue to work with the Chief of the National Guard Bureau and his 
staff to continue our support for his people and to implement any 
changes in responsibility that he may face as the result of 
congressional direction.
    Question. The Director, Air National Guard.
    Answer. Lieutenant General McKinley and I have a close working 
relationship that permits us both to meet the challenges brought about 
by the global war on terrorism, base realignment and closure, 
Quadrennial Defense Review (QDR), and myriad of other programs that 
affect both operations and personnel in the Air National Guard (ANG). 
In my current status, we meet regularly to make certain that our 
actions are open and transparent to one another. I know the ANG 
programs as well as anyone at my level. If confirmed, I will be able to 
be more proactive in proposing solutions to and even anticipate 
problems that will require congressional support.
    Question. The Chief, Air Force Reserve.
    Answer. My relationship with Lieutenant General Bradley is 
virtually identical as that with the Director of the ANG. His 
challenges and solutions differ somewhat because his organization has a 
national scope only. We meet regularly for the same reasons that I meet 
with Lieutenant General McKinley. Often, we all meet together to 
discuss our common areas of concern. If confirmed, my ability to bring 
about change that they need will increase dramatically.
    Question. Airmen and their families.
    Answer. Our Air Force family is the most important asset we have. 
If confirmed, I will devote all of my energies to improving processes, 
programs, and procedures used by our people to carry out their mission 
of protecting the citizens of the United States. I look forward to 
working with Congress to continuously seek out new solutions to both 
old and new challenges. I pride myself as being a good listener and I 
tend to travel extensively. I will keep in touch with our airmen and 
their families by seeking them out on their turf.

                             QUALIFICATIONS

    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. First, I spent 28 years as an officer in the United States 
Air Force. As a pilot, I have flown over 800 combat missions and earned 
a Silver Star and 2 Distinguished Flying Crosses. I was a commander 
during a very turbulent period in my squadron's history. During that 
tour, I was awarded the Air Force's highest individual award for 
Leadership--the Lance P. Sijan Award. Second, I spent 6 rewarding years 
as the Principal Deputy Assistant Secretary of Defense for Reserve 
Affairs covering the activities of all seven Reserve components 
beginning 50 days before September 11, 2001, and continuing until June 
29, 2007, when the President appointed me as the acting Assistant 
Secretary of the Air Force for Manpower and Reserve Affairs. Since that 
appointment, I have immersed myself in the responsibilities associated 
with this job. Finally, my father-in-law, CMSgt (Ret.) Richard D. 
Blevins, who is a hero to me, retired from the Air Force after 30 years 
of service. In our house, we are truly an Air Force family.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Assistant 
Secretary of the Air Force for Manpower and Reserve Affairs?
    Answer. I most certainly do. While I know much about the National 
Guard and Reserves as well as many of the benefits programs that are 
common to all Services, I intend to learn as much as possible about the 
other aspects of my job that are unique to the Air Force. While I have 
begun this task within the confines of the headquarters already, if I 
am confirmed, I will be able to work more closely with Congress and the 
committee staff personnel to become more proactive in programs and 
issues that affect our people.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges and problems 
confronting the Assistant Secretary of the Air Force for Manpower and 
Reserve Affairs?
    Answer. There are several. First, there is the continuing challenge 
of providing qualified personnel to continue to fight in the global war 
on terrorism. Second, we must reduce the stress on airman and their 
families who are shouldering the burden of repeated operational 
rotations. Third, we must make absolutely certain that our wounded 
warriors receive the finest possible treatment available. Fourth, we 
must plan for the next war and support the Secretary of the Air Force's 
initiatives to recapitalize the fleet.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. The Air Force relies upon volunteers to meet our 
commitments around the world. Recruiting, retention, training, and 
planning are essential elements of our plans. If we meet the needs of 
our people, our people will meet the needs of the Air Force. Second, my 
visits with airmen and their families lead me to believe that we can 
sustain a volunteer rotation cycle indefinitely if we establish a 
reasonable dwell ratio. The burden needs to be shared by all. Third, I 
am extremely proud of the men and women who make up our medevac 
mission--the first step on the road to recovery for all wounded 
warriors from this war. We need to partner with the rest of the 
department as well as the Department of Veterans Affairs as we seek to 
improve the care that these heroes receive once they return. Finally, 
there are threats in this world that are potentially even greater than 
the terrorist threats we face today. I share the Secretary's deep 
concern that, if we are to meet the threats of the future, we must 
recapitalize our hardware and develop new capabilities in the cyber 
world. People remain at the center of all these challenges.

             AIR FORCE ACTIVE-DUTY END STRENGTH REDUCTIONS

    Question. Following the QDR, the Air Force began a process to 
reduce the size of its total force by 40,000 airmen. Last year, the Air 
Force cut 23,000 personnel, and under the President's budget request 
for fiscal year 2008, the Air Force plans to cut another 5,600 active 
airmen. Planning for fiscal year 2009 contemplates additional 
reductions that would result in an Active-Duty end strength of 316,000 
airmen by the end of that fiscal year.
    How will the Air Force achieve these planned force reductions, and 
what is your understanding of the probable effects they will have on 
readiness, quality of life, and retention?
    Answer. The PBD 720 FYDP reductions have already been programmed. 
Preserving readiness, sustaining deployment and contingency missions 
while managing risk to home stations missions were all factors taken 
into consideration when determining where the cuts should take place. 
As a result of these reductions individuals/organizations face 
increased/intense steady-state mission demands and may deploy more 
frequently.
    Question. The Air Force is currently developing a strategy to 
achieve the force reductions needed in fiscal year 2009. No final 
decisions have been made at this point, but we expect to fully use the 
tools available in law--voluntary first, then involuntary. The 
authorities include voluntary separation pay, reductions in force, 
selective early retirements, and force shaping of probationary officers 
(less than 4 years of commissioned service). We will also take 
advantage of waivers from time-in-grade and commissioned service 
requirements for retirement.
    What is your understanding of military service leaders' views about 
whether an end strength of 316,000 will be sufficient for the Air Force 
to achieve its assigned missions in the future?
    Answer. 316,500 Active-Duty end strength is only sufficient for a 
78 combat wing equivalent force structure, while the most current Air 
Force vision to support combatant commanders requires manpower 
associated with an 86 wing equivalent structure, requiring Active-Duty 
end strength to grow to 330,000+. The DCS/Personnel staff is chartered 
to prepare a Congressional Reporting Requirement on a Review of Total 
Air Force End Strength Requirements, specifically the capabilities the 
current force structure provides, any shortfalls for new and emerging 
missions, and an explanation on how the Air Force could balance the 
budgetary demands necessary to implement any corrective policy action 
within its own budget. This report is due to Congress on 5 February 
2008.
    Question. In your view, will an end strength of 316,000 allow the 
Air Force to perform and accomplish its assigned missions?
    Answer. No. This is a similar question to the previous question. 
Currently the proposed end strength supports a 78 combat wing 
structure. As the combatant command requirements increase, our need for 
additional manpower will increase to fulfill that mission.
    Question. If the Air Force Special Operations Command requires 
additional end strength, do you believe that the Air Force will be able 
to support this requirement?
    Answer. Air Force will continue to provide the active military end 
strength as long as SOCOM provides the dollars to buy the end strength.
    Question. To what extent does the Air Force plan to rely on 
military-to-civilian conversions to achieve reductions in end strength 
while continuing to perform its missions, and what is your 
understanding of the availability of funding for civilian salaries, and 
the amount of time needed to achieve significant reductions using this 
means?
    Answer. The Air Force does not plan on using military-to-civilian 
conversion to achieve significant reductions. The Air Force has 
instituted an active military floor of 316,500 during the fiscal year 
2009 Program Budget Review. Per fiscal year 2010 POM Preparation 
Instruction, military end strength may not be ``cashed in'' as savings 
or as an offset to pay shortfalls in other areas without the consent of 
DCS/Personnel. No military-to-civilian conversion were programmed in 
the fiscal year 2009 PB given the 316,500 active military floor nor has 
the plan in the past or the future been to use military-to-civilian 
conversions as a means to achieve reductions in end strength. Fiscal 
year 2004 and fiscal year 2005 military-to-civilian conversions focused 
on reducing stress; civilian positions were added and military 
realigned to stressed career fields (no military end strength 
reductions). Fiscal year 2006 and fiscal year 2007 military-to-civilian 
conversions focused on converting non-military essential positions to 
civilian; military personnel funding transferred to civilian O&M to 
fund conversions (military end strength reduced).
    Question. A recent Air Force Times article quotes Air Force 
Secretary Wynne as concluding that the draw-down, which in his words 
was intended to maximize the resources that could be applied to 
recapitalization, was not having the intended effect and has only 
slowed--not reversed--the aging of the fleet.
    What is your assessment of whether the ongoing Air Force personnel 
reductions will significantly affect achievement of recapitalization?
    Answer. The personnel cuts were specifically programmed to help 
with the recapitalization of our force and the personnel savings have 
specifically been reprogrammed for meeting that requirement.
    Question. How will the increased number of Army and Marine Corps 
ground forces affect Air Force personnel requirements?
    Answer. As the U.S. Army and Marines are targeted for significant 
increases to bolster combat capability, there will be a commensurate 
requirement for an increase in Air Force manpower to ensure the 
effectiveness of the interdependent, joint team. Our Air Mobility units 
are intrinsically tied to supporting our Army and Marine team with 
logistical reach to go and be supplied anywhere in the world. Our 
weather teams, tactical air control, and other forces are imbedded with 
or closely tied with the ground forces. Air Force provides the full 
range of air assets as part of the interdependent joint fight, 
including increased Special Forces and Intelligence, Surveillance, and 
Reconnaissance requirements. Failure to recognize and fund the increase 
in capabilities provided by the Air Force via aforementioned 
Congressional Report on Total Air Force Active Military End Strength 
Requirements will impact the Air Force's flexibility to support the 
expanded ground forces.

    AIR NATIONAL GUARD AND AIR FORCE RESERVE END STRENGTH REDUCTIONS

    Question. Under the President's 2008 budget request, the Air Force 
plans to cut 7,700 part-time end strength positions from the ANG and 
Air Force Reserve (AFR) over the next year.
    What is your understanding of how the ANG and AFR will absorb these 
reductions in end strength over the FYDP given the missions they have 
been assigned worldwide?
    Answer. The ANG chose not to take a reduction in their end 
strength.. They funded the manpower positions through internal 
rebalancing.
    The AFR focused on maintaining combat capability when making PBD 
720 reductions and focused the majority of its PBD 720 reductions on 
the Individual Mobilization Augmentees (IMAs) force. IMA reductions 
minimized the operational risk to the Air Force by retaining needed 
experience by re-rolling IMAs to the participating Individual Ready 
Reserve where the Air Force still has access to their capabilities.
    Question. What is your understanding of the current status of 
coordination about the impact of these reductions with the National 
Guard Bureau and the State National Guard units affected?
    Answer. The ANG is not part of the 7,700 person reduction.
    Question. What missions currently assigned to the ANG and AFR would 
be changed or eliminated in order to meet end strength reductions?
    Answer. There are mission changes underway in the Reserve 
component. As part of the Total Force Integration the Air Force is 
reviewing which component is best suited to support Air Force missions.

                       OFFICER MANAGEMENT ISSUES

    Question. If confirmed as Assistant Secretary of the Air Force for 
Manpower and Reserve Affairs, what role would you expect to play, if 
any, in the officer management and promotion system, including policies 
affecting general officers?
    Answer. The Office of the Assistant Secretary of the Air Force for 
Manpower and Reserve Affairs enjoys a close working relationship with 
DCS/Personnel. As the policy owner for officer management and 
promotions, I expect that to continue. I feel very comfortable that, if 
confirmed, I could continue to provide the Secretary of the Air Force 
the appropriate guidance in these policy areas, to include policies 
affecting general officers.

                     EMPLOYMENT OF MILITARY SPOUSES

    Question. In your view, what progress has the Air Force made, and 
what actions need to be taken to provide increased employment 
opportunities for military spouses?
    Answer. Today, more and more spouses seek the personal fulfillment 
of a career. When this is coupled with the fact that many families need 
two incomes to maintain their quality of life, spouse employment 
opportunities become crucial to recruitment and retention. Air Force, 
through the Airman and Family Readiness Centers, has developed 
employment assistance services to meet the challenges spouses face in 
training for and finding suitable positions and, as they relocate, 
continuing and progressing in their chosen career fields. Baseline 
services at all centers include classes and individual consultation on 
career planning and personal development. Resource centers provide 
guided access to computers, laser printers, internet information on 
careers, and the development of job search skills, as well as local and 
long distance job listings. Individual career counseling and planning, 
assessment instruments, and interpretation of results are available. 
Air Force partners with the Air Force Aid Society and grants are 
offered every year to fund special programs at selected installations 
that train spouses in portable skills such as medical transcription and 
operating a home- or virtual-business. Recently Air Force has partnered 
with OSD and DOL in a pilot program that offers up to $3,000 per spouse 
to train or become licensed/certified in transportable careers. This 
Military Spouse Career Advancement Account pilot focuses on preparing 
spouses to work in high-growth, high-demand industries and occupations 
such as health care, information technology, early childhood education, 
and information technology. The pilot is currently available at six Air 
Force bases as well as other Services' installations. Air Force will 
work in conjunction with the other partners to ensure that pilot is 
successful and the opportunity is expanded to other installations. In 
addition, A&FR staff constantly network with local employers and human 
resource managers to promote the military spouse as a prime candidate 
for employment and partner with schools, non-profits, and other 
community organizations to offer career fairs and other employment 
resource opportunities.

   MANAGEMENT AND DEVELOPMENT OF THE SENIOR EXECUTIVE SERVICES (SES)

    Question. The Air Force initiated a senior leader management model 
to enhance and improve management, development, and assignment of SES 
executives and general officers.
    What is your assessment of how the Air Force program is working?
    Answer. This is working well. Senior civilian leaders are managed 
from a total force perspective with the intention of developing and 
utilizing executive resources consistent with requirements of the Air 
Force.
    Question. What is your vision of the approach the Air Force should 
take to further improve the management, development, and assignment of 
SES members, especially in the critically important areas of 
acquisition, logistics, financial, personnel, and contract management?
    Answer. The current system that is in place is working well. I 
would continue to endorse the Air Force-level assessment board of 
senior executives to determine leadership potential necessary for our 
future. Not to be confused with a promotion board, the assessment board 
is designed to assist in preparing development and utilization plans to 
place Senior Executives in the right jobs, with the right training, at 
the right time to best meet corporate requirements. Results of this 
board often reflect, or result in, the interchangeability of our senior 
executive workforce with their uniformed, General Officer counterparts.

   JOINT ASSIGNMENT OPPORTUNITIES FOR MILITARY AND CIVILIAN PERSONNEL

    Question. The QDR of February 2006 calls for reorienting defense 
capabilities in support of joint operations, to include joint air, 
joint mobility, and joint command and control.
    What is your assessment of the opportunities currently available 
for joint training and assignment today for both military and civilian 
personnel in the Department of the Air Force?
    Answer. The Air Force has adequate opportunities for joint training 
and assignment. Let me explain.
    Given the inherent ``jointness'' of how we are currently operating 
for global war on terrorism, we have seen significant improvement in 
how we prepare our people for joint operations and an increase in 
assignments that require a significant amount of joint understanding. 
At the same time, we have an eye on requirements. Along that line, the 
Air Force recently reviewed its ability to prepare officers for joint 
assignments by convening a panel of experts--internal and external. We 
concluded that opportunities exist, but our efforts should be more 
coordinated to ensure we grow military leaders who are steeped in joint 
as well as military leaders who have been exposed to joint matters. Up 
to now, our efforts have focused on ensuring military leaders have been 
exposed to joint experience. We plan to make this shift through 
guidance to our developmental teams. In addition, we plan on 
capitalizing on the legislative changes that established a non-billet-
based, career-long, multi-level JQS, which allows for many more 
opportunities to gain, credit, and collect joint capabilities to an 
expansive pool of airmen.
    The Air Force also remains concerned about preparing civilian 
leaders for joint operations. In fact, the Air Force is the executive 
agent to five of the nine combatant commands which means employees of 
these combatant commands are Air Force employees which facilitates 
movement of Air Force civilian employees in and out of joint 
organizations. Since the Air Force employs a strong career programs 
construct in which development of employees for Air Force corporately 
managed positions, including joint positions, is a primary goal. 
Therefore there are ongoing efforts to ensure we've developed and/or 
recruited the talent needed to fill these key positions. Moreover, as 
the Department moves to emphasize joint matters for civilian employees 
the Air Force seeks innovative ways to provide more senior civilian 
leaders with joint opportunities. Recently, the Air Force has been 
using developmental positions to ensure up-and-coming civilian leaders 
can have joint assignments (for example in the Joint Staff, Office of 
the Secretary of Defense staff, non-Air Force serviced combatant 
commands). In future spirals of the JQS, we will also be looking at 
capturing experience of our civilian workforce and how to optimize 
opportunities to increase our joint-capable inventory.
    Finally, not only does the Air Force train military and civilian 
members based on joint assignment requirements, but we also provide 
many joint education opportunities. In fact, 100 percent of our majors 
and 100 percent of our Air Force civilians starting with Pay Band 2 can 
complete Air Command and Staff College by correspondence which provides 
Joint Professional Military Education level I (JPME-I) certification. 
In addition, we send almost 450 majors and Pay Band 2 civilians to in-
residence JPME-1 schools each year. We also send over 275 lieutenant 
colonels, colonels, and civilian equivalents to in-residence Joint 
Professional Military Education level II (JPME-II) certifying schools 
each year. Based on joint assignments and deployment requirements, we 
also send approximately 320 officers each year to the Joint and 
Combined Warfighting School at Joint Forces Staff College where they 
also receive JPME-II certification. The Air Force believes in educating 
our military and our civilians as we prepare them for higher-level jobs 
that support the joint fight.
    Question. If confirmed, how would you assess the adequacy of the 
Air Force civilian workforce--in terms of training, experience, and 
numbers of government personnel--to support the Air Force mission?
    Answer. If confirmed, I would continue to use the developmental 
boards that determine how many and which civilians need what level of 
training.
    Question. What steps would you take, if confirmed, to move closer 
to the goal of reorienting Air Force personnel in support of joint 
operations?
    Answer. The Air Force goal always is to organize, train, and equip 
forces to provide air, space, and cyberspace power in support of 
national defense goals. This by definition means we'll continue to 
focus on providing trained personnel to support joint operations. Steps 
we'll take would be those already underway--understand the air, space, 
and cyberspace capabilities required by the joint world, inventory the 
personnel we have available to meet those requirements, and implement 
plans to close any gaps that exist.

                      MEDICAL PERSONNEL SHORTAGES

    Question. The military medical corps of all three departments are 
facing unprecedented challenges in the recruitment and retention of 
medical and dental personnel needed to support DOD's medical mission.
    What is your understanding of the Air Force's current ability to 
achieve recruiting and retention goals for medical personnel?
    Answer. The Air Force is no different than the other Services. 
Significant challenges exist in the recruiting and retention of medical 
personnel due to lucrative, private sector salaries, which are 
continuing to rise. Currently, the Air Force's medical, dental, and 
nurse corps have significant manning challenges that are directly 
attributable to the recruiting and retention of these personnel. As the 
cost of recruiting individuals to the medical specialties has 
increased, the Air Force's ability to retain experienced personnel has 
declined--compounding the problem. Without doubt, substantial 
challenges remain for the Air Force in order to compete with the 
private medical sector.
    Question. What steps would you take, if confirmed, to address 
recruitment and retention challenges in the Air Force Medical Services 
as well as the AFR?
    Answer. If confirmed, I would use the Air Force Recruiting and 
Retention Investment Strategy Council inputs to determine the right 
strategy--what pays and at what level.
    The Reserves are facing the same challenges as the Active Duty. We 
have an active ``Continuum of Service'' program at headquarters, U.S. 
Air Force, to address gaps that need closing to make the Total Force 
even more effective as we move forward to operationalize the Reserve 
Forces.
    Question. Are you confident that the Department has sufficient 
tools to achieve goals for recruitment and retention of highly skilled 
health care personnel? If not, what additional tools might be worthy of 
consideration in the future?
    Answer. Yes, the Air Force has received multiple authorities over 
the past 18 months, including the NDAA for Fiscal Year 2007 
authorization to pay accession bonuses to fully qualified physicians. 
We now have 23 different pay types for the 4 Air Force Medical Service 
Corps--Medical, Dental, Biomedical Sciences, and Nurse Corps. We also 
received authorization to increase the maximum amount of these pays, 
generating special pays and bonuses that contribute to a rewarding Air 
Force career. In addition to tools for attracting qualified candidates 
for the uniformed Air Force, we have direct hiring authority for 
civilian health care professions in selected specialties. This 
authority significantly decreases the processes and time required for 
hiring. These authorities are vital in helping the Air Force 
successfully compete with the private sector for highly qualified and 
motivated health care professionals.

                    PERSONNEL AND HEALTH CARE COSTS

    Question. Senior military leaders have testified in favor of the 
administration's proposals to significantly increase health care fees 
for military retirees as a result of the growing portion of the DOD 
budget devoted to personnel and benefit costs.
    Do you share the view that future operational readiness of the 
armed forces is threatened by the increasing costs of personnel 
benefits?
    Answer. The balance between operational needs and personnel 
benefits requires hard decisions but I do not see personnel benefits as 
posing a threat to the operational readiness of the Air Force. Within 
Air Force, our corporate structure judiciously balances operational 
requirements against personnel requirements and compensation. It is our 
people who enable the Air Force to accomplish its mission. Attracting 
capable personnel to the Air Force at times requires special bonuses. 
Retaining trained and experienced personnel likewise requires bonuses 
and special pays to make Air Force compensation competitive with that 
offered by the private sector or other Federal and State agencies. On 
the operational side, our personnel require equipment, planes, weapons, 
and systems to accomplish the mission. Air Force will continue to 
follow a planned approach that balances personnel compensation and 
benefits with operational requirements.
    Question. What efficiencies and personnel benefit changes do you 
believe warrant consideration to ensure a viable and affordable force?
    Answer. Before efficiencies or changes are made to personnel 
benefits, the Air Force evaluates the effectiveness of existing 
benefits in attracting and retaining personnel. Programs are updated 
based on what we learn from our airmen and civilian employees. Within 
Air Force, a lean work force of highly trained and motivated airmen and 
civilian employees utilize the newest technologies to accomplish the 
mission. The Active Duty, Reserve and Guard members, and civilian 
employees who compose our Total Force are highly trained and motivated, 
and use the newest technologies to create a seamless, integrated force 
that is properly shaped and organized to meet all challenges. Air Force 
will continue to evaluate the effectiveness of benefits in recruiting 
and retaining a productive work force, update or modify those programs 
based on the needs and priorities of our personnel, and balance 
personnel requirements with operational requirements. We will also 
continue to train and educate our Total Force, as well as use 
technology to maintain efficiency and effectiveness.

                   NATIONAL SECURITY PERSONNEL SYSTEM

    Question. The Department is phasing in a pay-for-performance system 
under the National Security Personnel System (NSPS).
    Based on your experience, what is your assessment of the adequacy 
and quality of training that is being provided on the new personnel 
system?
    Answer. Air Force has successfully converted over 39,000 employees. 
This represents nearly all nonbargaining general schedule civilian 
employees. The small number that have not yet converted are title 5 ANG 
employees who will convert with their title 32 counterparts, currently 
scheduled for March 2008. A robust training program delivered in 
advance of NSPS implementation was key to Air Force's success. The 
purpose of the training was to teach skills and behaviors to implement 
and sustain NSPS and to educate employees about NSPS.
    Air Force made available a blended approach of e-Learning courses 
using the Air Force portal and classroom training to address critical 
employee behavior, such as effective communications, problem solving, 
change-readiness, and leadership, under NSPS. Over 109,000 training 
occurrences for such courses were recorded to date in the Air Force.
    Air Force funded train-the-trainer training for a large cadre of 
trainers from both management and personnel. This prepared our bases 
and commands with the capability to deliver NSPS technical courses to 
the workforce, including military managers, prior to NSPS deployment. 
Over 72,000 training occurrences for such courses have been recorded to 
date in Air Force.
    Question. What are the most critical features of NSPS for the Air 
Force?
    Answer. The most critical feature of NSPS for the Air Force is the 
performance management system that is foundational to NSPS because it 
is a significant change from the two-tier system in place for the 
remainder of the workforce. Increased management responsibility for 
compensation is another critical feature.
    Question. If confirmed, how would you monitor the acceptance of the 
new system by the Air Force civilian workforce, and how would you 
intervene if acceptance of the system fell below expected levels?
    Answer. I plan to monitor acceptance using the Annual Status of 
Forces Survey of DOD Civilian Employees, administered for the DOD by 
the Defense Manpower Data Center. The survey assesses leadership and 
management practices that contribute to agency performance; and 
employee satisfaction with leadership policies and practices, work 
environment, rewards and recognition for professional accomplishment 
and personal contributions to achieving organizational mission, 
opportunity for professional development and growth, and opportunity to 
contribute to achieving organizational mission. We recently received 
the results of the 2007 survey and are reviewing those results to 
determine the questions that serve as bellwether(s) for NSPS acceptance 
as well as the level of change that would warrant intervention and the 
method of intervention.

                        AIR FORCE FAMILY SUPPORT

    Question. What are the key characteristics needed to ensure 
adequate support for Active and Reserve component families, 
particularly those who live great distances from military 
installations?
    Answer. The key characteristics are timely support for the family 
members and accessibility regardless of the Air Force component. Air 
Force supports families, both Active and Reserve components, through a 
variety of programs and services such as Extended Duty Child Care, Air 
Force Stay Connected deployment kits, Airman and Family Readiness 
Centers, and Reserve Family Readiness Programs.
    Question. How do you perceive the relationship between quality of 
life improvements and your own top priorities for military recruitment 
and retention?
    Answer. We are very aware of the fact that we recruit the airman 
but retain the family. Quality of life programs that complement our 
monetary programs are critically important and very well aligned with 
my top priorities for recruitment and retention. However, the pace of 
deployments is taking a toll on our families. Airmen love to contribute 
to the global war on terrorism, and we take exceptional care of the 
families left behind, but the pace of absenteeism from the homefront 
has an impact that quality of life sometimes cannot alleviate.
    Question. If confirmed, what further enhancements to military 
quality of life would you make a priority, and how do you envision 
working with the Office of the Secretary of Defense, family advocacy 
groups, and Congress to achieve them?
    Answer. We have multiple programs to enhance the quality of life. 
As I go out and talk to the airman around the world I will ask for 
their feedback.

                  GENERAL AND FLAG OFFICER NOMINATIONS

    Question. Under section 506 of the National Defense Authorization 
Act for Fiscal Year 2006, the Services must provide substantiated 
adverse information to promotion selection boards selecting officers 
for promotion to the grades of O7 and above.
    What is your understanding of the status of the Air Force's 
implementation of this requirement?
    Answer. The Air Force has provided substantiated adverse 
information to general officer selection boards in the form of Senior 
Officer Unfavorable Information Files (SOUIFs) for at least the last 10 
years. A SOUIF contains the following: substantiated adverse 
information collected by the Inspector General, any action taken by the 
commander, and the officer's comment or response to the SOUIF, if any.
    If adverse information is not substantiated in time for review by a 
promotion selection board, that information will be presented to a 
promotion review board before the Secretary of the Air Force decides 
whether to support the officer for appointment to the next higher 
grade.
    Question. What guidance is currently being provided by the 
Secretary of the Air Force to promotion selection board members about 
the manner in which such adverse information should be considered?
    Answer. In his Memorandum of Instructions to each general officer 
selection board, the Secretary of the Air Force addresses adverse 
information when discussing SOUIFs and Exemplary Conduct provisions. In 
particular, he describes what is contained in a SOUIF--adverse 
information collected by the Inspector General and command action, in 
addition to the officer's comment or response, if any. He also 
instructs the board to ``first make the judgment in each case whether 
the matter described in the SOUIF has served as a learning experience 
or is symptomatic of carelessness or character flaw, and then consider 
whether the incident should be a bar to promotion.'' The Secretary of 
the Air Force also outlines the exemplary conduct provisions as set 
forth in title 10, U.S.C., section 8583. Finally, by signing the board 
report, all board members certify to the Secretary of the Air Force 
that ``the officers recommended for promotion, including those who had 
adverse information furnished to the board, are in the opinion of the 
majority of the members of the board fully qualified and best qualified 
for promotion to meet the needs of the Air Force consistent with the 
exemplary conduct requirements of section 8583, of title 10, U.S.C.''

                         INTERSERVICE TRANSFERS

    Question. At the same time that the Army and Marine Corps are 
working harder than ever to achieve recruiting and retention goals, the 
Air Force has implemented force reductions affecting junior officers 
and is planning for additional significant reductions in Active-Duty 
and Reserve military personnel. While a bonus for interservice transfer 
has been authorized, additional incentives may be necessary to 
encourage ``blue to green'' (BtG) transfers in order to retain airmen 
with valuable military training, skills, and experience.
    What is your assessment of the adequacy of existing incentives for 
interservice transfers by Air Force personnel facing involuntary 
separation?
    Answer. The Air Force has targeted its drawdown on officers and 
enlisted in overage career fields and overage year groups to shape the 
force as we achieve authorized end strength. By incorporating the BtG 
program with other voluntary force shaping initiatives, we maximize the 
options for our officers and enlisted who might otherwise face possible 
involuntary separation. Increasing the Army's interservice transfer 
incentive from $2,500 to $10,000 has had a positive effect.
    Question. If confirmed, what steps, if any, would you take to 
enhance the number of BtG interservice transfers?
    Answer. Continue to highlight the opportunities for Air Force 
officers and enlisted facing further drawdown that they can continue 
their military careers and retain the attractive benefits of Active 
Duty service by transferring to the Army. Some examples that the Air 
Force is already doing to enhance the program:

          Air Force provided FSB/RIF eligible list information to Army 
        so they could send out over 2,500 BtG mailers.
          Air Force waived recoupment of unearned portions of most 
        bonuses for those going BtG.
          Posted announcements of BtG program on LESs
          Force Shaping messages contain BtG transfer information.
          Advertises the program via the Force Shaping website.
          Briefs BtG during all transition seminars.

               WOUNDED WARRIORS AND DISABILITY EVALUATION

    Question. What do you consider to be the most critical changes that 
are needed in the current disability evaluation system?
    Answer. To the servicemember, the Disability Evaluation System 
(DES) is overly bureaucratic, complex, and frustrating . . . and takes 
many months to complete. The DOD and Department of Veterans Affairs 
(DVA) are proactively addressing the issues raised by Congress, Review 
Groups, and Commissions regarding the DES.
    Two major concerns involve the differences among the Services and 
between DOD and DVA regarding how disability ratings are determined, as 
well as the duplicative physical exam requirements of the Services and 
DVA. DOD and DVA are working jointly to integrate the activities of 
both Departments to simplify the process, foster consistency, and 
provide a smooth post-separation transition for veterans and their 
families.
    Regarding the two major concerns, on November 26, 2007, DOD and DVA 
initiated a joint DES pilot program in the National Capital Region to 
streamline the DES process, as well as implement other process 
improvements. Members referred into the DES pilot will undergo a 
single, comprehensive DVA physical examination, eliminating the other 
physical exam required by each Service. Additionally, the DVA has the 
responsibility for determining disability ratings for all Service-
connected conditions, unfitting or not. The Services will decide 
whether a servicemember with an unfitting condition will be separated 
or retired based on this DVA-determined rating(s)--this will simplify 
the physical determination and foster consistency of decisions among 
the Services and between DOD and DVA.
    The DES pilot also will test enhanced non-clinical care and 
administrative activities, such as case management, benefits education, 
and the counseling requirements associated with disability case 
processing. The goal of the DES pilot is to shorten the time required 
to transition servicemembers to veteran status and provide them with 
their VA benefits and compensation.
    Overall, our objective is to improve the timeliness, effectiveness, 
and transparency of the DES process, as well as case management 
practices for our servicemembers.

                       DIVERSITY IN THE AIR FORCE

    Question. In its policies and practices, the Air Force is committed 
to the principles of equal opportunity with the goal of promoting 
equity, eliminating unlawful discrimination, and building teamwork and 
readiness.
    Answer. Where and when appropriate, the Air Force uses and should 
continue to use affirmative action plans and measures aimed at 
achieving and nurturing diversity. For example, the Air Force has 
active programs to support the reemployment and accommodation of 
service disabled veterans and people with targeted disabilities. 
Through such programs as the Disabled Veterans Affirmative Action 
Program and the Air Force Wounded Warrior Program, disabled veterans 
are both valued and sought after in the Air Force. They currently 
represent almost 12 percent of the permanent workforce. In fact, the 
Air Force was recently recognized by DOD as the best military 
department for its employment of people with targeted disabilities.
    Question. What is your view of the proper use of affirmative action 
plans and measures aimed at achieving or nurturing diversity in the 
Armed Forces?
    Answer. The Air Force has already incorporated appropriate DOD 
policy on diversity into guidance provided to promotion selection 
boards.
    In accordance with DOD Promotion Board Guidance, ``To remain 
competitive, the Department must have members from the entire spectrum 
of qualified talent available in the United States. Accordingly, DOD 
needs to make every effort to encourage service by individuals from all 
backgrounds by providing for the equal treatment and equitable 
consideration of all personnel considered for promotion.''
    I fully endorse this guidance.
    Question. In your opinion, how, if at all, should considerations 
relating to gender and minority status with respect to race, ethnicity, 
and nationality be addressed in the guidance provided by the Secretary 
to promotion selection boards?
    Answer. The Air Force has already incorporated appropriate DOD 
policy on diversity into guidance provided to promotion selection 
boards.
    In accordance with DOD Promotion Board Guidance, ``To remain 
competitive, the Department must have members from the entire spectrum 
of qualified talent available in the United States. Accordingly, DOD 
needs to make every effort to encourage service by individuals from all 
backgrounds by providing for the equal treatment and equitable 
consideration of all personnel considered for promotion.''
    I fully endorse this guidance.
    Question. What is your understanding of the manner in which 
considerations relating to gender and race, ethnicity, and nationality 
are used in cadet selection policies at the U.S. Air Force Academy 
(USAFA)?
    Answer. The Air Force welcomes and supports diversity at our USAFA. 
We are convinced that diversity significantly enhances the quality of 
higher education. We encourage everyone who believes that he or she may 
qualify to apply for admissions. USAFA is committed to consider all 
applications lawfully, individually, and fairly. That means that 
selection decisions are made without regard to religion, race, 
ethnicity, nationality, or gender. The exception to this is that we 
have a strong international cadet program where cadets are nominated by 
their home nations.
    Question. Do you agree with the USAFA's approach with respect to 
the selection of applicants?
    Answer. First, we have a process today that results in a Cadet Wing 
full of great cadets. The current selection process is lawful, and is 
being administered fairly. Selection decisions are made without regard 
to religion, race, ethnicity, nationality, or gender. In the past 2 
years the Academy has accepted the highest number of women cadets ever, 
and of African American cadets in recent history. However, we are 
absolutely committed to achieving greater diversity. The way to 
continue to improve is through recruiting a more diverse applicant 
pool. The Academy is developing a very robust diversity plan to achieve 
that end. We are also working through our Board of Visitors to improve 
the congressional nomination submission rate. In addition, we are 
beginning to look at diversity as a broader composition of individual 
characteristics then just race, ethnicity, or gender. In order to 
expose all cadets to the broadest possible range of ideas and 
experiences, USAFA considers such things as life's experiences, 
socioeconomic background, whether an individual is a first generation 
college student, language abilities, and more. This approach will 
broaden the aperture for recruiting, and we believe will result in ever 
a richer educational experience for future cadets.

                             SEXUAL ASSAULT

    Question. On February 25, 2004, the Senate Armed Services Committee 
Subcommittee on Personnel conducted a hearing on policies and programs 
of the DOD for preventing and responding to incidents of sexual assault 
in the Armed Forces at which the service vice chiefs endorsed a ``zero 
tolerance'' standard. Subsequently, in response to congressional 
direction, the Department developed a comprehensive set of policies and 
procedures aimed at improving prevention of and response to incidents 
of sexual assaults, including appropriate resources and care for 
victims of sexual assault.
    Do you consider the current sexual assault policies and procedures, 
particularly those on confidential reporting, to be effective?
    Answer. Yes, I do. Sexual assault is a complex problem. The 
decision to allow victims the opportunity to make a restricted report, 
thereby providing her or him time to receive medical assistance and 
counseling, the ability to provide forensic evidence, and the time to 
regain control of the decisions impacting their lives is an important 
factor in helping the victim to begin to heal. We want victims to 
report this crime so that we can hold offenders accountable but we know 
that this is the most under reported crime in America and we need to 
provide a venue where victims who are reluctant to report can receive 
care.
    Question. What is your understanding of the manner in which the new 
policies have been implemented in the Air Force?
    Answer. My understanding is that the Air Force has taken a very 
aggressive approach to addressing sexual assault. As a result of an Air 
Force-wide Assessment of U.S. Air Force Sexual Assault Prevention and 
Response in 2004, coupled with the DOD Task Force Report on Care for 
Victims of Sexual Assault, the Air Force implemented an aggressive 
prevention and response program. Full-time Sexual Assault Response 
Coordinators (SARCs) are in place at Air Force installations working 
directly for the Vice Wing Commander. The majority are GS-12 civilian 
employees. A portion of the SARCs are Active-Duty military so that 
there are a sufficient number of trained SARCs for deployment. 
Volunteer victim advocates (military and DOD civilian employees) are 
screened by the SARCS and trained to assist victims. SARCs and Victim 
Advocates receive 40 hours of initial training in subjects such as 
victimology, critical advocacy skills, knowledge of the military, 
victim reporting preferences, criminal investigative processes, 
military judicial and evidentiary requirements, and health care 
management of sexual assault and medical resources/treatment options. 
With the assistance of subject matter experts, the Air Education and 
Training Command developed and is deploying educational modules at all 
levels of basic, intermediate, professional military education levels, 
and for pre-deployment.
    The Air Force is currently developing a Bystander Intervention 
program to address other methods of prevention.
    Question. If confirmed, what oversight role would you expect to 
play in implementing DOD policies on sexual assault throughout the Air 
Force, including Active and Reserve components?
    Answer. I believe the Air Force has made significant progress in 
victim assistance and prevention but the complexity of this issue and 
its pervasiveness throughout all society require that we continue to 
monitor policies and procedures and their effectiveness. I would work 
closely with OSD Personnel and Readiness and the various Air Force 
functional communities who are vital to our success to assess progress 
and make policy corrections where necessary. While the portfolio of the 
Assistant Secretary contains policy oversight responsibility for some 
of the key first responders (personnel, health care providers, Guard 
and Reserve) I would work closely with all first responders to maintain 
a proactive and vital Air Force team . . . with the goal of eliminating 
the crime but assuring that where there is a victim, she or he receives 
the best care we can provide.

                    UNITED STATES AIR FORCE ACADEMY

    Question. In 2003, in response to complaints of sexual assaults and 
harassment of female cadets at the USAFA, the Secretary of the Air 
Force and the Chief of Staff initiated the ``Agenda for Change'' (AfC), 
which introduced numerous changes at the Academy aimed at preventing 
and responding to incidents of sexual assault.
    What elements of the AfC have been most effective and which have 
been modified or dropped, and why?
    Answer. The AfC called for a strong focus on development of the 
character that is expected from a commissioned Air Force officer--the 
honor and integrity that reflect the core values of the Air Force. That 
means developing cadets so that their loyalty to these values and to 
the institution is above loyalty to their peers or anyone who betrays 
these values. Much of what appears in the AfC is designed to achieve 
that singular purpose. The extensive policies, training, and procedures 
to prevent and respond to sexual assault are prime examples of that 
focus. It was this refocusing on developing officers of character that 
has been most effective because it drove a positive change in the cadet 
culture.
    While the intent of the AfC is being met, we have backed off on 
some individual directives. For example, we made some organizational 
changes--such as changing to Vice Superintendent to a Director of 
Staff, or having the Director of Athletics report to the Commandant of 
Cadets, that over time proved not to be ideal organizational 
constructs, therefore, we reverted to the original structure.
    Question. What is your assessment of the reforms included in the 
AfC, and what is your understanding of the current equal opportunity 
climate at the USAFA?
    Answer. The AfC was the initial catalyst that started moving the 
Academy in the right direction. Combined with the many recommendations 
we received from reviews, surveys, and reports such as the Fowler Panel 
Report we have made great progress. As we continue to move forward, we 
need to ensure we don't lose sight of the underlying AfC principles--
developing officers of character motivated to lead in the Air Force.
    The equal opportunity climate at the USAFA is, overall, very 
positive.
    Question. The reviews, focused on the status and problems 
experienced by female cadets at the USAFA in 2003, demonstrated the 
importance of focused, informed oversight by service civilian and 
military senior leaders of conditions for female cadets and midshipmen. 
The Service Academy 2006 Sexual Harassment and Assault Survey found 
that even with the implementation of corrective measures, sexual 
assault and harassment continue to be factors negatively affecting 
female cadets at the military academies.
    What is your evaluation of the conclusions and recommendations of 
the Service Academy 2006 Sexual Harassment and Assault Survey and the 
Report of the Defense Task Force on Sexual Harassment and Violence at 
the Military Service Academies?
    Answer. We examined each of the conclusions and recommendations 
made available to us through the various reviews, reports, and surveys, 
and they have been instrumental in the development of our policies and 
programs. Specifically, the Service Academy 2006 Gender Relations 
Survey provided considerable insight into the status of unwanted, 
gender related behaviors. It showed we still have work to do in 
addressing these complex social issues. However, it also showed 
significant progress in our training programs and overall improvement 
in female perceptions of USAFA leadership and cadet culture. These were 
very positive trends. It was also one of the only reports we have seen 
that provided some context to this issue by sighting the prevalence of 
these crimes in civilian institutions.
    The Defense Task Force on Sexual Harassment and Violence at the 
Military Service Academies primarily addressed the United States 
Military Academy and Naval Academies because the Fowler Panel had 
previously completed a very detailed review of the USAFA. In fact, by 
the time the report was released the USAFA was already in compliance or 
acting on 41 of the report's 44 primary recommendations. This was 
largely due to the fact that we had taken decisive action on the Fowler 
Panel recommendations--addressing all 21 recommendations spanning 
accountability, oversight, organizational culture, intervention, and 
response to sexual assault.
    Question. What actions would you expect to take, if confirmed, to 
address the problems of sexual assault and sexual harassment at the 
USAFA and with respect to the Air Force's programs in this regard?
    Answer. First, I would like to emphasize the significant attention, 
resources, and deep commitment that has been put forth on these issues 
by leaders in Congress, OSD, the Air Force, and the Academy over the 
last several years. We have made progress. The recently released Annual 
Report on Sexual Harassment and Violence at U.S. Military Service 
Academies for Academic Year 2006-2007 conducted by the DOD Sexual 
Assault Prevention and Response Officer highlights that progress. It 
states, ``The USAFA leadership has clearly demonstrated commitment to 
their Sexual Assault Prevention and Response Program through sustained 
and dedicated efforts. USAFA has done an outstanding job developing and 
continuously improving policies, procedures, and processes designed to 
prevent and respond to sexual violence in accordance with DOD 
policies.'' It goes on to state that, ``Appropriate mechanisms are in 
place both at Headquarters Air Force (HAF) and USAFA to ensure 
oversight of the effectiveness of the sexual assault prevention and 
response program at USAFA.''
    Now is the time for dedicated, persistent oversight. I will ensure 
we stay focused on providing the best possible education and training, 
the best prevention and response programs, and continue to improve the 
cadet culture. One sexual assault is too many, so we simply cannot let 
up on continuously improving on what we have started here.

                  RELIGIOUS PRACTICES IN THE AIR FORCE

    Question. What is your assessment of corrective measures taken at 
the USAFA to ensure religious tolerance and respect, and of Air Force 
guidelines regarding religious tolerance that were promulgated in 
August 2005?
    Answer. USAFA has made great strides in enhancing their religious 
respect program. Initially, HAF helped them in developing and 
implementing an extensive training program based on respecting 
individual values that reached every cadet and every member of the 
faculty, staff, and permanent party. That type of training has now been 
incorporated into initial recurring training. It is important to note 
that the steps taken at the USAFA to ensure religious tolerance and 
respect are directly in line with the religious respect guidelines for 
the greater Air Force. It is critical that we have one consistent set 
of guidelines that are fair to everyone and applied equally across the 
board because the USAFA is not an institution unto itself but part of 
the larger Air Force.
    The task of providing for free exercise of religion, while not 
appearing to establish a religion, is complex enough in any government 
setting. Arguably, it is even more complex in a military environment, 
and yet again more challenging in a university military setting. The 
Revised Interim Guidelines Concerning Free Exercise of Religion in the 
Air Force, dated February 9, 2006, represents a thoughtful effort to 
strike the right balance on this issue. The guidelines remain interim 
because we need to be absolutely sure we have this right, and living 
with the guidelines for an extended period of time is the best way to 
understand their full impact.
    Question. What additional steps, if any, do you think need to be 
taken with respect to the role of military chaplains in performing 
their duties in ministering to airmen?
    Answer. I don't anticipate making any significant changes to the 
interim guidelines until we have more experience with them. The 
guidelines task HQ Air Education and Training Command with developing a 
plan for incorporating the guidelines in all venues of formal training 
and education for officers, enlisted, and civilian personnel where Air 
Force Core Values and professional standards are addressed. In 
addition, we are developing a computer-based training program for all 
Air Force members. We are well on our way to creating a climate founded 
on respect. Dedicated and determined oversight is what is needed now to 
ensure we remain focused on that outcome.

                FOREIGN LANGUAGE TRANSFORMATION ROADMAP

    Question. A Foreign Language Transformation Roadmap announced by 
the Department on March 30, 2005, directed a series of actions aimed at 
transforming the Department's foreign language capabilities, to include 
revision of policy and doctrine, building a capabilities-based 
requirements process, and enhancing foreign language capability for 
both military and civilian personnel.
    What is your understanding of the status of the actions identified 
in the Defense Language Transformation roadmap?
    Answer. As the acting Under Secretary, I've kept abreast of the 
Defense Language Transformation Roadmap, and I can tell you with 
certainty that the Air Force is fully committed to increasing language 
and cultural capabilities amongst our airmen. As of June 2007, the Air 
Force achieved Full Operational Capability with respect to the 10 
specific tasks assigned to the Services. In addition, Joe McDade, the 
Air Force's Senior Language Authority, is actively engaged in the 
Defense Language Steering Committee in facilitating achievement of the 
remaining 12 tasks to be completed under the Roadmap.
    The Air Force's specific initiatives have established a strong 
foundation for embedding language and cultural competencies within our 
force. As a matter of fact, our institutional competencies embrace 
language and culture as part of airman development throughout a career. 
I look forward to continued coordination with Dr. Chu as the DOD 
continues along the path of Defense Language Transformation to meet 
irregular warfare and stability, security, and transition missions.
    Question. If confirmed, what steps would you take to identify 
foreign language requirements, and to design military and civilian 
personnel policies and programs to fill those gaps?
    Answer. The changing nature of warfare, and the advent of stability 
and security operations as the norm, have highlighted the need for Air 
Force personnel to be able to operate in diverse regions with diverse 
cultures. The nature of our mobile force also demonstrates our airmen's 
adaptability to diverse cultures, which enables operational 
effectiveness. I will continue to champion Air Force efforts to 
identify language requirements and cultural skill sets and focus on 
deliberately developing language capabilities based on validated 
requirements.
    Question. The Air Force works with the USD (Policy) in publishing 
the Department of Defense Strategic Language List, which reflects 
regions and languages the DOD anticipates engagement in over the next 
15 years. Additionally, the Air Force Senior Language Authority 
supplements that list based on unique Air Force missions. Upon 
confirmation, I will continue to ensure Air Force coordination with the 
combatant commands and defense agencies to fully identify foreign 
language requirements.
    Question. What is your assessment of an appropriate time frame 
within which results can be realized in this critical area?
    Answer. The Air Force is continuing to target airman for 
development . . . the right airman, at the right place, at the right 
time. Since implementation of the Language Transformation Roadmap, 
there have already been results in developing a foundational and surge 
capability within the Air Force. Our airmen deploying overseas are 
provided language familiarization kits while airman supporting the 
rebuilding of the Iraqi and Afghani Air Forces are receiving language 
training from Defense Language Institute mobile training teams.
    I also realize that learning a language is not an overnight 
endeavor. In the summer of 2010, the Air Force will be commissioning 
the first cohort of Reserve Officer Training Corps cadets on foreign 
language scholarships and seeing the benefits of increased summer 
immersion tours and study abroad opportunities. The path has been laid 
and I believe if we fly the course we will continue to see the 
benefits.
    Question. Do you believe that Air Force language proficiency 
incentives for personnel are appropriate and effective--that is that 
they encourage personnel to learn foreign languages? If not, why, and 
what would you do to address this issue, if confirmed?
    Answer. The increases in foreign language proficiency pay (FLPP) in 
June 2006 may have incentivized some who were already familiar with one 
of the strategic languages. However, it takes the average person 
several years to achieve fluency in a nonromance language at a level 
that qualifies for FLPP. If confirmed, I will ensure the appropriate 
emphasis is continued to be placed on foreign language skills, to 
include an increased focus on sustaining and enhancing capabilities.
    Question. What is your view regarding whether Air Force Special 
Operators should be ``SOF for life'' from the perspective of language 
and cultural awareness training and retention?
    Answer. I support the Air Force premise of the right airmen, at the 
right place, at the right time. In terms of SOF airmen with a specific 
mission enhanced by language, cultural and regional awareness, I view 
retention in line with Air Force requirements. I will continue to 
ensure training and education opportunities are targeted to the right 
airmen to ensure Air Force support of the SOCOM mission is met.

                             FAMILIES FIRST

    Question. For over 10 years, U.S. Transportation Command and its 
subordinate command, Surface Deployment and Distribution Command, have 
worked to improve the process of moving servicemembers' household 
goods. Implementation of the new system--``Families First''--will use a 
``best value'' approach to contracting with movers that will focus on 
quality of performance, web-based scheduling, member counseling, and 
tracking of shipments using the new Defense Personnel Property System 
(DPS), encouragement of door-to-door moves, and full replacement value 
for damaged household goods. Implementation of Families First and DPS 
is now taking place, but the support of the military Services is 
critical to its success.
    What is your understanding of the progress being made in the Air 
Force, including adequate funding, in implementing the Families First 
program, and what challenges remain?
    Answer. Based on the recently authorized $100 million (PBD) to 
cover anticipated increased costs associated with Families First 
implementation and Full Replacement Value protection for loss and 
damage to household goods shipments, we understand there is sufficient 
funding within the Air Force.
    Question. If confirmed, what role would you and the Deputy Chief of 
Staff for Personnel expect to play in ensuring that Families First is 
fully explained to airmen and women and that customer satisfaction 
surveys are submitted in order to ensure the system works as intended 
to measure the performance of movers?
    Answer. Our role is one of support to A4 who has responsibility for 
household goods transportation activities within the Air Force. At the 
time of assignment notification, military members are advised to 
contact their location Transportation Office to arrangement household 
goods movement. USTRANSCOM developed a robust customer satisfaction 
survey process, tracks progress, and provides feedback to A4.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Air Force for Manpower and Reserve Affairs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

    1. Senator Levin. Mr. Duehring, a draft DOD Instruction currently 
circulating within the Pentagon would provide that:

          ``The appointment of a judge advocate (or for the Marine 
        Corps, an officer designated as a judge advocate) requires the 
        coordination of the General Counsel of the Military Department 
        concerned for appointment of officers to grades O-6 and below, 
        and requires the coordination of the General Counsel of the 
        Department of Defense for officers appointed to grades above O-
        6.''

    In your view, would such a requirement, if adopted: effectively 
give civilian lawyers--political appointees--a veto over the 
recommendations of promotion boards?
    Mr. Duehring. Although I had seen the article from the Boston 
Goble, this matter has not yet formally come to my attention as it is 
currently in staffing to the Services. I am advised that it was not 
language developed by the Air Force, and that DOD is deleting that 
language from the draft instruction.

    2. Senator Levin. In your view, would such a requirement, if 
adopted: constitute an improper interference of political appointees in 
the promotion board process?
    Mr. Duehring. That language will not be in the final version of the 
instruction.

    3. Senator Levin. In your view, would such a requirement, if 
adopted: have a potentially chilling effect on legal advice furnished 
by JAG attorneys to military commanders, and by JAG to the Chiefs of 
Staff?
    Mr. Duehring. That language will not be in the final version of the 
instruction.

    4. Senator Levin. In your view, would such a requirement, if 
adopted: call into question the neutrality and impartiality of legal 
advice furnished by military lawyers?
    Mr. Duehring. That language will not be in the final version of the 
instruction.
    In summary, the language has been removed which should put the 
immediate issue to rest. Additionally, on a personal level, I believe 
that the ability of the JAG to provide independent advice should not be 
impaired. As I state in testimony, there is no place in the promotion 
process for inappropriate political influence.
                                 ______
                                 
               Questions Submitted by Senator John McCain

                          TRICARE FOR RESERVES

    5. Senator McCain. Mr. Duehring, the readiness of the Reserve 
component for military operations, particularly physical fitness and 
readiness, has been a major concern, resulting in a number of 
initiatives, including authorization of TRICARE benefits for Reserves. 
Based on your experience within the Department, has the health status 
of Reserve components improved measurably since 2001, or is medical and 
dental readiness a continuing problem? If so, why?
    Mr. Duehring. The medical readiness and physical fitness of Air 
Reserve Component (ARC) servicemembers continue to improve steadily. 
Tracking of the six individual readiness metrics mandated by the Office 
of the Secretary of Defense (OSD), i.e. dental readiness, periodic 
health assessments, immunization status, laboratory tests, no 
deployment limiting conditions, and individual medical equipment and 
fitness readiness allows the Services to focus their efforts for 
improving these areas. These improvements result from command emphasis, 
medical squadron diligence, focused contractual support, and individual 
servicemember effort.
    The ARC funds a Reserve Health Readiness Program contract that has 
increased dental readiness by providing additional dental exams for its 
members. OSD funds a Post Deployment Health Reassessment contract that 
provides increased screening services, thereby increasing the members' 
continuum of care following deployments.
    Qualifying National Guard and Reserve members and their families 
may purchase the TRICARE Reserve Select health care and/or the TRICARE 
Dental Program. Reservists ordered to Active Duty for a period of more 
than 30 consecutive days have the same medical and dental TRICARE 
coverage as Active-Duty servicemembers.
    Network adequacy for TRICARE-eligible reservists varies by region. 
We continue to investigate this issue and work with our managed care 
support contractors to increase TRICARE participation within the 
network by health care providers.
    We continually review, research, and implement programs and 
legislation that will improve the medical readiness and physical 
fitness of the Reserve components.

    6. Senator McCain. Mr. Duehring, if confirmed, how would you 
recommend better monitoring and improving the health status of Air 
Force Reserve and Air National Guard personnel?
    Mr. Duehring. Accelerating the electronic health record portion of 
AHLTA would facilitate access to VA medical records belonging to ARC 
personnel, enabling DOD to better monitor and ultimately improve the 
health status of those personnel. Currently, DOD relies on episodic 
screening for medical readiness examinations and self-reporting by the 
servicemember. Gaps in the available medical data and elective 
disclosure or nondisclosure by the servicemember may adversely impact 
readiness decisions made on the servicemember's behalf. Thus access to 
a servicemember's VA medical record will increase the validity of the 
assessment of a servicemember's medical readiness.
    We must continue to encourage increased participation in the 
TRICARE Reserve Select healthcare program and TRICARE Dental program. 
In those regional areas lacking complete coverage we must continue to 
seek ways to make the coverage robust for all TRICARE-eligible Reserve 
members.
    New accessions to the ARC often have extensive dental requirements 
and basic and technical training schedules do not allow for time to 
address more than basic dental needs. Providing a dental benefit after 
completion of basic military training, technical school, or 
deployments, similar to the Transitional Assistance Management Program 
for medical care, would help alleviate this problem.

              ROLE OF CIVILIANS IN EXPEDITIONARY MISSIONS

    7. Senator McCain. Mr. Duehring, one of the issues that this 
committee will have to address in this and future conflicts is the 
utilization of Federal civilian employees in support of expeditionary 
missions. What are your views on the incentives needed to promote 
civilian service, including support of contingency operations?
    Mr. Duehring. Federal civilians do currently deploy in support of 
expeditionary missions. In fact, many are hired with the expectation 
they will deploy into combat theaters. DOD has aggressively pursued 
incentives. The current program covers needs of the individual as 
evidenced by our success in recruiting civilian employees for 
nontraditional jobs such as the joint OSD/State Department Provisional 
Reconstruction Team mission in Iraq just last year.
    There is continuing pressure for tax exempt status for deployed 
civilians, similar to the benefit military members receive. Since the 
pay/compensation structures of our military and civilian members are so 
different, it is difficult to make a direct comparison of benefits, but 
the lack of tax exemption is perceived as an inequity.

    8. Senator McCain. Mr. Duehring, if confirmed, how would you lead 
the Air Force civilian service to even higher levels of training and 
performance?
    Mr. Duehring. Air Force civilians are an increasingly large 
percentage of our workforce, and we rely on them as never before to 
deliver air, space, and cyberspace power in support of the Nation's 
security.
    Already the Air Force has strong programs in place to promote 
career-long development of our civilian workforce, including 
opportunities for our civilian employees to attend professional 
development in residence without a tax on our organizations. We also 
have formal developmental constructs in place and utilize development 
teams to assess the potential of civilian employees, vectoring those 
who participate toward appropriate developmental opportunities--
educational, training, or experiential (e.g., reassignment).
    Moreover, we have collaborated with others in DOD to implement a 
pay-for-performance culture by transitioning as many government service 
employees as possible to the National Security Personnel System and 
transitioning all senior civilians (e.g., members of the Senior 
Executive Service) to a pay-for-performance system.
    My efforts after confirmation will focus on continuing the 
implementation of developmental programs for civilians as well as 
furthering the culture change required in a pay-for-performance system. 
Performance based management requires a shift in thinking from a task-
based to a competency-based system which will enable capabilities 
planning.
    As we increasingly compete for top talent, we will continue to 
focus on force management planning tools and workforce flexibilities to 
continue to attract, retain, and reward a high-performing workforce. 
The cornerstone of our strategy will be to continue to develop and 
implement a competency-based occupational management system. We have 
teamed with other DOD partners already in development of broad 
competencies in several of our mission critical occupations. 
Identification of the competencies and competency gaps in these mission 
critical occupations will enable us to focus deliberate development and 
training on those occupations that have the most impact on capability.
    I look forward to the opportunity to ensure our Air Force is best 
positioned to utilize its personnel--military and civilian--in support 
of our Nation's security.
                                 ______
                                 
    [The nomination reference of Craig W. Duehring follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 November 15, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Craig W. Duehring, of Minnesota, to be an Assistant Secretary of 
the Air Force, vice Michael L. Dominguez.
                                 ______
                                 
    [The biographical sketch of Craig W. Duehring, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                Biographical Sketch of Craig W. Duehring

    Mr. Duehring is the Principal Deputy Assistant Secretary of Defense 
for Reserve Affairs and the acting Assistant Secretary of the Air Force 
for Manpower and Reserve Affairs.
    As the Principal Deputy, Mr. Duehring serves as the senior deputy 
to the Assistant Secretary of Defense for Reserve Affairs in policy 
development and overall supervision of the Reserve Forces of the Armed 
Forces of the United States. He is the chief staff advisor to the 
Assistant Secretary for all functional areas and responsibilities 
assigned to the office.
    As the acting Assistant Secretary of the Air Force for Manpower and 
Reserve Affairs. Mr. Duehring heads a four-division department that 
deals at the policy level with Air Force Manpower and Reserve Affairs 
issues. He is responsible for providing overall supervision of 
manpower, military and civilian personnel, Reserve component affairs, 
and readiness support for the Department of the Air Force.
    Previously, Mr. Duehring served on the Bush-Cheney Transition Team 
and the Department of Defense Transition Team. He was the executive 
director of the Patrick Henry Center for Individual Liberty, a non-
profit 501(c)(3) educational and charitable foundation located in 
Fairfax, VA. Mr. Duehring was the endorsed Republican candidate for the 
Minnesota 2nd Congressional District in 1998. He is a 28-year military 
veteran, retiring as a colonel in the U.S. Air Force in February 1996. 
His final military assignment was as the U.S. Air Attache to the 
Republic of Indonesia.
    He is a decorated combat pilot, completing over 800 missions during 
the Vietnam war as a Forward Air Controller. Mr. Duehring has flown 
more than a dozen types of aircraft, amassing over 1,200 hours in the 
A-10 Thunderbolt II. His military awards and decorations include the 
Silver Star, the Defense Superior Service Medal, 2 Distinguished Flying 
Crosses, 3 Meritorious Service Medals, 27 Air Medals, 2 Air Force 
Commendation Medals, the Vietnamese Cross of Gallantry (individual 
award), and the Vietnamese Staff Service Honor Medal (1st Class). Mr. 
Duehring is also a recipient of the Air Force's highest individual 
award for leadership in the senior officer category, the Lance P. Sijan 
(SIGH-john) Award. Mr. Duehring holds a bachelor of science in History 
and Sociology from Minnesota State University at Mankato, and a master 
of science in Counseling and Guidance from Troy State University.
    He is a native of Mankato, MN.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Craig W. 
Duehring in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Craig William Duehring.

    2. Position to which nominated:
    Assistant Secretary of the Air Force for Manpower and Reserve 
Affairs.

    3. Date of nomination:
    November 15, 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    April 25, 1945; Mankato, MN.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Theresa Bayne Duehring.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Minnesota State University at Mankato, BA, December 1967.
    Troy State University, MS, June 1975.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Feb. 1996, retired from U.S. Air Force (Colonel).
    Feb. 1996-Nov. 1998, seeking political office, U.S. House of 
Representatives MN-02.
    Nov. 1998-Nov. 1999 (est.) unemployed.
    Nov. 1999-July 2000 (est. dates) Executive Director, Patrick Henry 
Center for Individual Liberty, Gary Aldridge - president, 10525 West 
Drive, Fairfax, VA.
    July 2000 (est.)-July 2001, I worked various volunteer positions on 
the Bush-Cheney campaign including the transition team.
    July 2001-present, Principal Deputy Assistant Secretary of Defense 
for Reserve Affairs, (PDASD/RA), Pentagon.
    June 2007-present, PDASD/RA and Acting Assistant Secretary of the 
Air Force, Manpower and Reserve Affairs.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Edgar Allen Poe Society (The Ravens)--fraternal organization of 
forward air controllers who flew in Southeast Asia using the call sign 
``Raven.'' 1972-present.
    American Legion--affiliated with China Post #1. 1975-present.
    Veterans of Foreign Wars--affiliated with Post #1648, New Ulm, MN. 
Life member since 1996.
    Reserve Officers Association--2002-present.
    Air Force Association--1968-present.
    National Military Family Association--app 1992-2005.
    National Association of Military Services--1997-2005.
    German Historical Institute--2002-present.
    Junior Pioneers of New Ulm, MN. Life member since 1996.
    Brown County (Minnesota) Historical Society--1996-present.
    AARP--1995-present.
    Deadalians--Fraternal Order of Military Pilots--2002-present.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Republican Candidate for the U.S. House of Representatives (MN-2) 
1996.
    Republican Candidate for the U.S. House of Representatives (MN-2) 
1998.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    President George Bush.
    Mark Kennedy for Senate.
    Sen. Norm Coleman.
    Sen. George Allen.
    Rep. Gil Gutknecht.
    Rep. John Kline.
    Rep. Mark Kennedy.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
Awards and Honors:
    Silver Star
    Defense Superior Service Medal
    Distinguished Flying Cross with oak leaf cluster
    Meritorious Service Medal with three oak leaf clusters
    Air Medal with 26 oak leaf clusters
    Air Force Commendation Medal with oak leaf cluster
    Republic of Vietnam Gallantry Cross
    Republic of Vietnam Staff Service Medal (First Class)
Other Achievements:
    1987 Lance P. Sijan Award, senior officer category

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Multiple speeches given as the endorsed Republican candidate for 
Congress in the 1996-1998 timeframe. I also wrote letters to the editor 
during that period. Prior to my appointment as the PDASD/RA at the 
Department of Defense, I often gave speeches to civic groups about my 
time in Southeast Asia. My current duties require quite a bit of public 
speaking on behalf of the Department of Defense and the U.S. Air 
Force--mostly to military audiences. I have not published any books, 
opinion columns, and the like.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Craig W. Duehring.
    This 20th day of November, 2007.

    [The nomination of Craig W. Duehring was reported to the 
Senate by Chairman Levin on December 18, 2007, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on December 19, 2007.]
                              ----------                              

    [Prepared questions submitted to John H. Gibson by Chairman 
Levin prior to the hearing with answers supplied follow:]

                        Questions and Responses

     DUTIES OF THE ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL 
                              MANAGEMENT)

    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Air Force (Financial Management)?
    Answer. It is my understanding, the Assistant Secretary of the Air 
Force (Financial Management) is principally responsible for the 
exercise of the comptrollership functions of the Air Force, including 
all financial management functions. Additionally, this position is 
responsible for all financial management activities and operations of 
the Air Force and advising the Secretary of the Air Force on financial 
management.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. Currently, I am serving as Deputy Under Secretary of 
Defense (Management Reform) in the Office of the Secretary of Defense 
(OSD)/Under Secretary of Defense (Comptroller), and have also 
previously served as the acting Deputy Under Secretary of Defense 
(Financial Management) also in the OSD/Under Secretary of Defense 
(Comptroller). Both of these experiences have allowed me direct 
involvement in and exposure to many of the financial management 
strategies, efforts, and challenges which exist throughout the 
Department. Additionally, I have previously held several senior 
executive level management positions in the private sector in which I 
have been directly responsible for financial, management, operating, 
and strategic performance of an organization. Also, I received an 
undergraduate degree in Finance, and an undergraduate degree in 
Economics as well as a Masters in Business Administration.
    Question. Do you believe that there are any actions that you need 
to take to enhance your ability to perform the duties of the Assistant 
Secretary of the Air Force (Financial Management)?
    Answer. Although my current position has allowed me some insight 
into Air Force financial management, if confirmed, I will need to 
quickly become familiar with this area in much greater detail, 
including the specific challenges and issues the Air Force financial 
management organization is addressing, both short- and long-term.

                             RELATIONSHIPS

    Question. What is your understanding of the relationship between 
the Assistant Secretary of the Air Force (Financial Management) and 
each of the following?
    The Secretary of the Air Force.
    Answer. It is my understanding, the Assistant Secretary of the Air 
Force (Financial Management) is the principal advisor to the Secretary 
of the Air Force on financial management matters. The Assistant 
Secretary (Financial Management) also performs other duties as the 
Secretary may prescribe.
    Question. The Under Secretary of the Air Force.
    Answer. It is my understanding, the Assistant Secretary of the Air 
Force (Financial Management) is also the principal advisor to the Under 
Secretary of the Air Force on financial management matters. The 
Assistant Secretary (Financial Management) also performs other duties 
as the Under Secretary may prescribe.
    Question. The other Assistant Secretaries of the Air Force.
    Answer. It is my understanding, the Assistant Secretary (Financial 
Management) works closely with the other Assistant Secretaries of the 
Air Force, and provides advice and input on financial matters, and 
provides financial management policy leadership, guidance, 
implementation and coordination, as appropriate.
    Question. The General Counsel of the Air Force.
    Answer. It is my understanding, the Assistant Secretary of the Air 
Force (Financial Management) would have a close working relationship 
with the General Counsel of the Air Force, to always include an 
understanding of any and all legal implications in Air Force financial 
matters to assure compliance with the appropriate rules and 
regulations.
    Question. The Under Secretary of Defense (Comptroller).
    Answer. Considering my current service in the Under Secretary of 
Defense (Comptroller) office, it is my understanding, the Assistant 
Secretary of the Air Force (Financial Management) works closely with 
the Under Secretary of Defense (Comptroller) in the development and 
execution of financial, budgetary, and fiscal policies as they relate 
to the Air Force.
    Question. The Assistant Secretary of Defense for Networks and 
Information Integration/Chief Information Officer.
    Answer. It is my understanding, the Assistant Secretary of the Air 
Force (Financial Management) works closely with the Assistant Secretary 
of Defense (NII) to ensure that Department of the Air Force's diverse 
and extensive information technology systems are properly managed and 
resourced to accommodate and perform the full spectrum of financial 
management functions and reporting which is required to achieve the Air 
Force's financial management reporting goals.
    Question. The Director, Office of Program Analysis and Evaluation.
    Answer. It is my understanding, the Assistant Secretary of the Air 
Force (Financial Management) would work with the Director, Program 
Analysis and Evaluation to ensure the program priorities of the Air 
Force are well understood and thorough Air Force program reviews are 
conducted within the framework of the Planning, Programming, Budgeting, 
and Execution (PPBE) process and timetable. Additionally, this 
Assistant Secretary of the Air Force (Financial Management) works to 
convey and communicate the results to Air Force leadership, and ensures 
the results are in line with overall Department of Defense (DOD) 
strategy.
    Question. The Chief of Staff of the Air Force.
    Answer. It is my understanding, the Assistant Secretary of the Air 
Force (Financial Management) would work closely with the Chief of Staff 
to provide support required in order to execute his duties and 
responsibilities to achieve the overall mission of the Air Force.
    Question. The Assistant Secretaries for Financial Management of the 
Army and the Navy.
    Answer. It is my understanding, the Assistant Secretary of the Air 
Force (Financial Management) works closely with the with the Assistant 
Secretaries of the Army and Navy in the area of financial management in 
an effort to facilitate integrated and coordinated decision making at 
all levels and achieve the strongest cooperation between the Services 
possible. A cordial and productive working relationship with these 
colleagues is essential to successfully supporting the efforts of the 
Secretary of Defense and the Under Secretary of Defense (Comptroller).

      CIVILIAN AND MILITARY ROLES IN THE AIR FORCE BUDGET PROCESS

    Question. What is your understanding of the division of 
responsibility between the Assistant Secretary of the Air Force 
(Financial Management) and the senior military officer (the Director, 
Air Force Budget) responsible for budget matters in the Air Force 
Financial Management office in making program and budget decisions, 
including the preparation of the Air Force Program Objective 
Memorandum, the annual budget submission, and the Future Years Defense 
Program?
    Answer. It is my understanding, the Assistant Secretary of the Air 
Force (Financial Management) has the responsibility and authority for 
all budget matters within the Air Force, and accordingly, the Director, 
Air Force Budget would serve as a direct report to the Assistant 
Secretary of the Air Force (Financial Management) and would be 
responsible for the formulation, justification, and execution of the 
Air Force budget, including the preparation of the Air Force Program 
Objective Memorandum and the Future Years Defense Program.

                     BUSINESS TRANSFORMATION AGENCY

    Question. The Department recently established the Business 
Transformation Agency (BTA) to strengthen management of its business 
systems modernization effort.
    What is your understanding of the mission of this Agency and how 
its mission affects the responsibilities of the Assistant Secretary of 
the Air Force (Financial Management)?
    Answer. Given my current role in the Office of the Under Secretary 
of Defense (Comptroller) and its interactions with the BTA, it is my 
understanding, the mission of the BTA is responsible for executing 
enterprise level business transformation and therefore works with the 
functional leaders and components to accomplish its mission. Given the 
BTA stated mission and the tiered accountability approach to its 
execution, the Assistant Secretary of the Air Force (Financial 
Management) will be allowed the flexibility to direct the requirements 
for the Air Force financial management mission, while continuously 
coordinating and integrating with the BTA to ensure meeting the 
enterprise level mission requirements as well.
    Question. What is your understanding of the role of the Assistant 
Secretary of the Air Force (Financial Management) in providing the Air 
Force's views to the Agency, or participating in the decisionmaking 
process of the agency, on issues of concern to the Air Force?
    Answer. It is my understanding, given the tiered accountability 
governance of the BTA's mission, the Assistant Secretary of the Air 
Force (Financial Management) should continuously coordinate and 
integrate with the BTA to ensure the BTA is aware of the ongoing Air 
Force issues, as well as to understand the challenges and issues at the 
enterprise level.

                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of the Air Force (Financial 
Management)?
    Answer. In my opinion, the major challenges the Assistant Secretary 
of the Air Force (Financial Management) will face are: significant, 
continuous pressure on budgetary resources and the constant challenges 
of meeting the Air Force's mission needs with the resources available; 
and continuing the significant effort to improve the Air Force's 
financial management through improvement in financial processes and 
financial systems.
    Question. Assuming you are confirmed, what plans do you have to 
address these challenges?
    Answer. If confirmed, I will work closely with the Air Force 
leadership to develop and execute sound, logical, and workable budgets 
which take into account the Air Force mission objectives as well as the 
overall budgetary environment. Additionally, I will work with the Air 
Force and DOD leadership to continue, and possibly enhance, the Air 
Force efforts to achieve improved business processes and systems, 
primarily through active oversight and involvement in the Air Force's 
responsibilities in the FIAR and Enterprise Transition Plan (ETP) 
programs. Lastly, as the Assistant Secretary of the Air Force 
(Financial Management) serves in a financial management leadership 
role, my goal would be to provide strategic leadership and vision in 
areas the Air Force can benefit financially and operationally on a 
longer-term basis.

                               PRIORITIES

    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Assistant Secretary 
of the Air Force (Financial Management)?
    Answer. If confirmed, my priorities would be to focus on the major 
challenges: addressing budgetary pressures and performance; sustaining 
the ongoing improvement in business processes, systems, and operations; 
and providing strategic guidance in the financial management area.

                FINANCIAL MANAGEMENT AND ACCOUNTABILITY

    Question. The DOD's financial management deficiencies have been the 
subject of many audit reports over the past 10 or more years. Despite 
numerous strategies and inefficiencies, problems with financial 
management and data continue.
    What do you consider to be the top financial management issues that 
must be addressed by the Department of the Air Force?
    Answer. As it relates to financial management issues which have 
been the subject of many audit reports, it is my opinion the 
significant financial management and data issues to be addressed are: 
continued improvement in business processes and operations; continued 
improvement in business systems; and addressing the culture to embrace 
and support these system and process improvements.
    Question. If confirmed, how would you plan to ensure that progress 
is made toward improved financial management in the Air Force?
    Answer. If confirmed, my initial plan to ensure financial 
management progress continues would be to: support the Air Force's 
compliance with the FIAR and ETP programs; evaluate, support, and 
enhance the Air Force efforts to improve business processes and 
operations; support and be involved in any efforts to communicate the 
qualities and benefits of process and systems improvements; support 
efforts for training and education all across the financial management 
spectrum; and work with other areas of the Department to benefit from 
best practices, insights, and synergies as it relates to all these 
areas.
    Question. If confirmed, what private business practices, if any, 
would you advocate for adoption by the DOD and the Department of the 
Air Force?
    Answer. Although the DOD and the Department of the Air Force are 
unique from the private sector in their mission and in many operational 
aspects, there are certainly a number of financial and management 
practices which are similar to the private sector and could benefit 
from best practices being used elsewhere. If confirmed, I would 
encourage the sharing of best practices with not only the other 
Services, agencies, and departments in the Federal Government, but 
strongly advocate awareness and adoption of practices where there is an 
appropriate private sector practice the Air Force would benefit by 
emulating.
    Question. What are the most important performance measurements you 
would use, if confirmed, to evaluate changes in the Air Force's 
financial operations to determine if its plans and initiatives are 
being implemented as intended and anticipated results are being 
achieved?
    Answer. Performance metrics play a significant role in the success 
of any financial operations, and if confirmed, I will work to 
understand and manage the current financial performance metrics the Air 
Force is employing and also will work with the Under Secretary of 
Defense (Comptroller) to ensure the financial performance metrics the 
Air Force uses in the future will support the financial operations 
success of both the DOD and the Department of the Air Force.
    Question. Over the last several years, the DOD has taken a number 
of steps to realign its management structure to expedite and enhance 
its business transformation efforts. For example, the Department has 
established a new Defense Business Systems Management Committee, the 
BTA, and the Investment Review Boards. The military departments do not 
appear to have taken similar organizational steps.
    Do you believe the organizational structure of the Department of 
the Air Force is properly aligned to bring about business systems 
modernization and improvements in the financial management of the Air 
Force?
    Answer. In my current role in the Office of the Under Secretary of 
Defense (Comptroller) I am aware the Department has and is constantly 
evolving its management and oversight of its business transformation 
efforts, and recent governance changes have served to increase the 
oversight and inclusiveness of transformation efforts department-wide. 
I am not familiar with the specifics of the Air Force's organizational 
structure and governance to comment on its current alignment with the 
overall DOD structure.
    Question. If not, how do you believe the Department should be 
restructured to more effectively address these issues?
    Answer. At this point I do not have a complete understanding of how 
the Air Force is structured to address this issue, however, if 
confirmed, I would work to fully understand this issue and be capable 
of addressing whether the current governance structure is adequate.

                       ENTERPRISE TRANSITION PLAN

    Question. For the past several years, the administration has 
published an ETP aimed, in part, at correcting deficiencies in the 
DOD's financial management and ability to receive an unqualified 
``clean'' audit.
    If confirmed, what would your role be in this business 
modernization effort?
    Answer. If confirmed, it is my belief the Assistant Secretary 
(Financial Management) should play an instrumental role in 
coordinating, facilitating, and championing the business modernization 
efforts in the Air Force.
    Question. The Business Management Modernization Program advocates 
top-down leadership in establishing an enterprise architecture for 
business systems modernization. The Services, however, appear to be 
pursuing independent pilot programs for modernizing business systems, 
despite the risk that a Service-led approach could produce numerous 
incompatible systems.
    Do you support an OSD-led approach to business modernization?
    Answer. I support a common, integrated, and coordinated enterprise 
level led approach to business modernization, with tiered 
accountability empowering the execution of the programs at the local 
level to foster the most efficient and effective execution and the most 
efficient use of taxpayer dollars.
    Question. If so, what would you do, if confirmed, to ensure that 
the Air Force supports such an approach?
    Answer. If confirmed, I will work to coordinate and facilitate Air 
Force efforts to ensure the programs managed by the Air Force conform 
to the standards and policies set by OSD and the various laws governing 
system development.
    Question. A critical requirement of the ETP is an enterprise 
architecture that would establish standards and requirements for 
modernization or new acquisition of business information technology 
systems.
    Do you agree that an effective enterprise architecture is a 
critical step to ensure that new and modified business information 
technology systems serve their intended purposes?
    Answer. Yes. A common, integrated, and coordinated architecture is 
essential to the effective and efficient aggregation of financial data 
for reporting, thereby optimizing, the information available for 
management decisionmaking.

   GOVERNMENT ACCOUNTABILITY OFFICE (GAO) RECOMMENDATIONS FOR REFORM

    Question. The Comptroller General has taken the position that the 
enterprise architectures of the military departments are not mature 
enough to responsibly guide and constrain investment in business 
systems. According to GAO, the Air Force has fully satisfied only 14 of 
31 core framework elements of an enterprise architecture.
    What is your view of this issue? If confirmed, what steps, if any, 
do you plan to take to address this problem?
    Answer. I am not familiar with the details of the Air Force's 
scoring for the core framework elements the Comptroller General is 
referring to. If I am confirmed, it would be my intention to thoroughly 
review the Comptroller General's report, become familiar with this 
issue, and consider his valuable conclusions very seriously.
    Question. Section 2222 of title 10, U.S.C., requires the DOD to 
institute a process to ensure that money is not wasted on new or 
upgraded defense business systems that are not in compliance with the 
required enterprise architecture. The Comptroller General has testified 
that the enterprise architectures of the military departments ``are not 
mature.'' Nonetheless, they continue to invest billions of dollars 
every year in thousands of business system programs.
    What is your view of this issue?
    Answer. Through my current position, I am familiar with the 
evolving enterprise level governance structure which has been put in 
place, and it is my view this structure, and the current integration 
and oversight of investments in modernizing business systems, is 
effective and continuously improving. I do not have an understanding of 
the military departments (and specifically the Air Force) level of 
maturity as it relates to the governance and status of their enterprise 
architecture efforts and therefore do not feel I can comment.
    Question. Do you believe that we need additional controls on the 
expenditure of funds for business systems until such time as the 
required enterprise architecture is complete?
    Answer. Since I do not have a full understanding of the Air Force's 
business systems governance and processes, it would be premature for me 
to comment as to the adequacy of their internal controls. However, if 
confirmed, given the significant amount of taxpayer dollars being 
invested in these systems, and the important role the systems play in 
future financial management success, this would be an important area to 
quickly understand and become involved in.
    Question. In testimony before the Readiness and Management Support 
Subcommittee, the Comptroller General of the United States, David M. 
Walker, suggested that to improve the likelihood of meaningful, broad-
based financial management and related business reform at DOD, DOD 
should give the leaders of DOD's functional areas, or ``domains,'' 
control of systems investments.
    What is your view of this suggestion?
    Answer. Since I am not familiar with the specific governance 
structure of ``domains'' which exist in the Air Force, I would not be 
comfortable expressing a view as it relates to the Air Force. However, 
in general, it is my belief the most effective and efficient use of any 
investment occurs with control at the local level. It should be noted, 
in situations where local ``domains'' are building blocks of enterprise 
level programs, a top down oversight and integration should also exist.
    Question. Mr. Walker testified that the DOD should fix its 
financial management systems before it tries to develop auditable 
financial statements. He explained that: ``Given the size, complexity, 
and deeply ingrained nature of the financial management problems facing 
DOD, heroic end-of-the-year efforts relied on by some agencies to 
develop auditable financial statement balances are not feasible at DOD. 
Instead, a sustained focus on the underlying problems impeding the 
development of reliable financial data throughout the Department will 
be necessary and is the best course of action.''
    Do you agree with this statement?
    Answer. Yes, with the general spirit of Comptroller General 
Walker's statement.
    Question. What steps need to be taken in the Air Force to achieve 
the goal stated by the Comptroller General?
    Answer. I am not aware of the details of the Air Force programs and 
efforts to achieve the goals Comptroller General Walker is referring 
to, however, in general, compliance with the FIAR and ETP programs (as 
they relate to Air Force) are going to be significant contributors to 
achieve the goals Comptroller General Walker is proposing.

                      LEASING MAJOR WEAPON SYSTEMS

    Question. The controversy surrounding the Air Force 767 tanker 
lease proposal raised significant concerns over leasing versus 
purchasing major military equipment.
    What is your opinion of leasing versus buying major capital 
equipment?
    Answer. In the private sector, both options have value, but the 
best choice is strictly contingent upon the financial and operational 
variables involved, and each situation is unique. I am not intimately 
familiar with the specifics or arguments of leasing versus purchase as 
it relates to the Federal environment, and therefore cannot comment one 
way or another.
    Question. Is leasing a viable and cost-effective option for 
procuring Department of the Air Force equipment, and if so, in what 
situations?
    Answer. I am not familiar with the specifics or arguments of the 
leasing versus purchase evaluation in the Federal environment, and more 
specifically as it might pertain to the Air Force. However, if I am 
confirmed, this is an area that I would quickly become familiar with, 
consult with the functional areas, as well as this committee to 
determine the financial management opinion on the option which is the 
highest, best, and most proper use of the taxpayer's dollars.

               SUPPLEMENTAL FUNDING AND ANNUAL BUDGETING

    Question. Since September 11, 2001, the DOD has paid for much of 
the cost of ongoing military operations through supplemental 
appropriations.
    What are your views regarding the use of supplemental 
appropriations to fund the cost of ongoing military operations?
    Answer. Recently, supplemental appropriations have been used as a 
funding mechanism for war-related military operations in a very fluid, 
dynamic environment, as opposed to the base budgeting process which has 
a longer lead time and is more rigid in nature. More recently, the 
global war on terror anticipated costs have been combined with the base 
budget. It is my opinion that budgeting for costs associated with 
global war on terror can be presented in either fashion, and if 
confirmed, I will work with the Air Force, Department leadership, and 
Congress to support the presentation of the budget in which ever 
fashion is chosen.

              AUTHORIZATION FOR NATIONAL DEFENSE PROGRAMS

    Question. Do you believe that an authorization pursuant to section 
114 of title 10, U.S.C., is necessary before funds for operations and 
maintenance, procurement, research and development, and military 
construction may be made available for obligation by the DOD?
    Answer. Yes. I do recognize situations can occur where funds have 
been appropriated but not authorized in the Department, and it is my 
understanding it is the Department's practice to work with all the 
oversight committees to communicate and resolve these situations. If 
confirmed, I will work closely with the oversight committees to achieve 
a resolution of the situation, if it arises, and will respect the views 
and rights of the committees.

                          INCREMENTAL FUNDING

    Question. Both the executive and legislative branches have 
traditionally followed a policy of full funding for major capital 
purchases such as aircraft. However, the Department of the Air Force 
has used incremental funding to purchase certain satellites.
    What is your view of the incremental funding of major capital 
investments?
    Answer. I do not have a full understanding of the details or 
arguments of the full versus incremental funding analysis, and more 
specifically as it would pertain to the Air Force. However, if I am 
confirmed, this is an area that I would work to better understand, and 
consult with the functional areas, as well as this committee to 
determine the financial management opinion on the option which is the 
highest, best, and most proper use of the taxpayer's dollars.

                   FUNDING FOR HEALTH CARE FACILITIES

    Question. The conditions identified at Walter Reed Army Medical 
Center in February 2007 focused considerable attention on the care, 
management, and transition of wounded servicemembers, as well as the 
condition of medical care facilities.
    What is your understanding of the Secretary of the Air Force's 
responsibility for the maintenance and modernization of Air Force 
medical facilities?
    Answer. I am not familiar with the responsibilities of the 
Secretary of the Air Force as it relates to maintenance and 
modernization of Air Force medical facilities.
    Question. Do you believe the current system of oversight and 
funding for DOD medical facilities clearly defines responsibility and 
authority between the military departments and the OSD?
    Answer. I am not familiar with the current system of governance and 
funding for DOD medical facilities as it relates to the 
responsibilities and authorities between the military departments and 
the OSD.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Air Force (Financial Management)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee of Congress, or to consult with the 
committee regarding the basis for any good faith delay or denial in 
providing such documents?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of John H. Gibson follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  October 26, 2007.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    John H. Gibson, of Texas, to be an Assistant Secretary of the Air 
Force, vice Michael Montelongo, resigned.
                                 ______
                                 
    [The biographical sketch of John H. Gibson, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                Biographical Sketch of John H. Gibson II

    Jay Gibson joined the Department of Defense in February 2006 to 
serve as Deputy Under Secretary of Defense (Management Reform) in the 
Office of the Under Secretary of Defense (Comptroller) with 
responsibilities for pursuing financial, operational, and management 
improvements across the Office of the Secretary of Defense as well as 
defense wide. Mr. Gibson also served as the acting Deputy Under 
Secretary of Defense (Financial Management) from August 2006 to July 
2007.
    Prior to joining the Department of Defense, Mr. Gibson held several 
senior management roles in private industry.
    Most recently, Mr. Gibson managed a consulting organization 
focusing on the workout and turnaround environment providing advisory 
sendees to both borrowers and lenders. Earlier in his career, he served 
in senior executive roles with several different organizations in 
financial, operational, strategic, and policy positions.
    Mr. Gibson received two undergraduate degrees (Bachelor of Business 
Administration-Finance, Bachelor of Arts-Economics) from the University 
of Texas at Austin, and his Masters in Business Administration from the 
University of Dallas. Mr. Gibson and his wife are from Texas, and have 
two sons.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by John H. Gibson 
in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    John H. Gibson II.

    2. Position to which nominated:
    Assistant Secretary of the Air Force (Financial Management).

    3. Date of nomination:
    October 26, 2007.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    February 15, 1959; Flushing, NY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Lauris Marie Hillard.

    7. Names and ages of children:
    John Holdon Gibson III, age 14.
    Davis Hillard Gibson, age 11.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Bachelor of Arts, Economics, The University of Texas at Austin, May 
1981.
    Bachelor of Business Administration, Finance, The University of 
Texas at Austin, December 1981.
    Masters of Business Administration, The University of Dallas, 
August 1994.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Deputy Under Secretary of Defense (Management Reform), Office of 
the Secretary of Defense (Comptroller), February 2006 to present.
    Managing Director, DK Consulting Group, LLC, Abilene, TX, June 1999 
to January 2006.
    Vice President/COO, Galbraith Electric Company, Abilene, TX, 
February 1995 to May 1999.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    City of Abilene, Electrical Subcommittee (Appointed/Resigned).
    Airport Development Board, Facilities and Planning Subcommittee, 
Taylor County, TX (Appointed/Resigned).

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    St. John's Episcopal Church, McLean, VA--Member.
    Jewel Chanty Ball, Fort Worth, TX (Charitable)--Member.
    Steeplechase Club of Fort Worth, Fort Worth, TX (Social)--
Nonresident Member.
    Air Force Association--Member.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Volunteer--Bush/Cheney 2004.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    2003 - Bush/Cheney 2004 - $2,000.
    2002 - Texans for Senator John Cornyn - $500.
    2005 - Dyer for Schoolboard - $200.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    None.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    John H. Gibson.
    This 30th day of October, 2007.

    [The nomination of John H. Gibson was reported to the 
Senate by Chairman Levin on December 18, 2007, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on December 19, 2007.]
                                APPENDIX

Committee on Armed Services Questionnaire on Biographical and Financial 
               Information Requested of Civilian Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses.)


    5. Date and place of birth:


    6. Marital Status: (Include maiden name of wife or husband's name.)


    7. Names and ages of children:


    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.


    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.


    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.


    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.


    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.


    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.


    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.


    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Information furnished in Parts B 
through F will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Will you sever all business connections with your present 
employers, business firms, business associations or business 
organizations if you are confirmed by the Senate?


    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.


    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization?


    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?


    5. Is your spouse employed and, if so, where?


    6. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.


    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    6. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Attorney General's office concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or civil litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.


                         Part F--Financial Data
    All information requested under this heading must be provided for 
yourself, your spouse, and your dependents.

    1. Describe the terms of any beneficial trust or blind trust of 
which you, your spouse, or your dependents may be a beneficiary. In the 
case of a blind trust, provide the name of the trustee(s) and a copy of 
the trust agreement.


    2. Provide a description of any fiduciary responsibility or power 
of attorney which you hold for or on behalf of any other person.


    3. List sources, amounts and dates of all anticipated receipts from 
deferred income arrangements, stock options, executory contracts and 
other future benefits which you expect to derive from current or 
previous business relationships, professional services and firm 
memberships, employers, clients and customers.


    4. Have you filed a Federal income tax return for each of the past 
10 years? If not, please explain.


    5. Have your taxes always been paid on time?


    6. Were all your taxes, Federal, State, and local, current (filed 
and paid) as of the date of your nomination?


    7. Has the Internal Revenue Service ever audited your Federal tax 
return? If so, what resulted from the audit?


    8. Have any tax liens, either Federal, State, or local, been filed 
against you or against any real property or personal property which you 
own either individually, jointly, or in partnership?


    (The committee may require that copies of your Federal income tax 
returns be provided to the committee. These documents will be made 
available only to Senators and the staff designated by the Chairman. 
They will not be available for public inspection.)

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20------.
                                 ______
                                 

Committee on Armed Services Questionnaire on Biographical and Financial 
       Information Requested of Certain Senior Military Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                    COMMITTEE ON ARMED SERVICES FORM
   BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES FOR 
                   CERTAIN SENIOR MILITARY POSITIONS
                      Instructions to the Nominee:

    Complete all requested information. If more space is needed use an 
additional sheet and cite the part of the form and the question number 
(i.e. A-9, B-4) to which the continuation of your answer applies.
    If you have completed this form in connection with a prior military 
nomination, you may use the following procedure in lieu of submitting a 
new form. In your letter to the Chairman, add the following paragraph 
to the end:

    ``I hereby incorporate by reference the information and commitments 
        contained in the Senate Armed Services Committee form 
        `Biographical and Financial Information Requested of Nominees 
        for Certain Senior Military Positions,' submitted to the 
        Committee on [insert date or your prior form]. I agree that all 
        such commitments apply to the position to which I have been 
        nominated and that all such information is current except as 
        follows: . . . .'' [If any information on your prior form needs 
        to be updated, please cite the part of the form and the 
        question number and set forth the updated information in your 
        letter to the Chairman.]

                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses. 
Also include your office telephone number.)


    5. Date and place of birth:


    6. Marital Status: (Include name of husband or wife, including 
wife's maiden name.)


    7. Names and ages of children:


    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the Committee by the Executive Branch.


    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.


    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the Committee by the Executive Branch.


    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


    13. Personal views: Do you agree, when asked before any duly 
constituted committee of the Congress, to give your personal views, 
even if those views differ from the Administration in power?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Information furnished in Parts B 
through E will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your military 
service. If so, explain.


    2. Has anybody made a commitment to employ your services in any 
capacity after you leave military service?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    5. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


    6. Is your spouse employed and, if so, where?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
Federal, State, county or municipal law, regulation or ordinance, other 
than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.
      

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20------.

                                 <all>
      

</pre></body></html>
